<html>
<title> - NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 113TH CONGRESS</title>
<body><pre>[Senate Hearing 113-270]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-270
NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             113TH CONGRESS
=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                             NOMINATIONS OF

   HON. CHARLES T. HAGEL; GEN LLOYD J. AUSTIN III, USA; GEN DAVID M. 
 RODRIGUEZ, USA; HON. ALAN F. ESTEVEZ; MR. FREDERICK E. VOLLRATH; MR. 
ERIC K. FANNING; GEN. PHILIP M. BREEDLOVE, USAF; GEN MARTIN E. DEMPSEY, 
 USA; ADM JAMES A. WINNEFELD, JR., USN; HON. STEPHEN W. PRESTON; HON. 
JON T. RYMER; MS. SUSAN J. RABERN; MR. DENNIS V. McGINN; ADM CECIL E.D. 
  HANEY, USN; LTG CURTIS M. SCAPARROTTI, USA; HON. DEBORAH LEE JAMES; 
 HON. JESSICA GARFOLA WRIGHT; MR. FRANK G. KLOTZ; MR. MARCEL J. LETTRE 
 II; MR. KEVIN A. OHLSON; MR. MICHAEL D. LUMPKIN; HON. JAMIE M. MORIN; 
                         AND HON. JO ANN ROONEY

                               ----------                              

        JANUARY 31; FEBRUARY 12, 14, 28; APRIL 11; JULY 18, 25, 30; 
                  SEPTEMBER 19; OCTOBER 10, 2013

                               ----------                              

         Printed for the use of the Committee on Armed Services


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             113TH CONGRESS






                UNITED STATES GOVERNMENT PRINTING OFFICE
87-878 PDF              WASHINGTON DC: 2014
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cfa8bfa08facbabcbba7aaa3bfe1aca0a2e1">[email&#160;protected]</a>  







                                                        S. Hrg. 113-270
 
NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             113TH CONGRESS
=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                             NOMINATIONS OF

   HON. CHARLES T. HAGEL; GEN LLOYD J. AUSTIN III, USA; GEN DAVID M. 
 RODRIGUEZ, USA; HON. ALAN F. ESTEVEZ; MR. FREDERICK E. VOLLRATH; MR. 
ERIC K. FANNING; GEN. PHILIP M. BREEDLOVE, USAF; GEN MARTIN E. DEMPSEY, 
 USA; ADM JAMES A. WINNEFELD, JR., USN; HON. STEPHEN W. PRESTON; HON. 
JON T. RYMER; MS. SUSAN J. RABERN; MR. DENNIS V. McGINN; ADM CECIL E.D. 
  HANEY, USN; LTG CURTIS M. SCAPARROTTI, USA; HON. DEBORAH LEE JAMES; 
 HON. JESSICA GARFOLA WRIGHT; MR. FRANK G. KLOTZ; MR. MARCEL J. LETTRE 
 II; MR. KEVIN A. OHLSON; MR. MICHAEL D. LUMPKIN; HON. JAMIE M. MORIN; 
                         AND HON. JO ANN ROONEY

                               __________

 JANUARY 31; FEBRUARY 12, 14, 28; APRIL 11; JULY 18, 25, 30; SEPTEMBER 
                          19; OCTOBER 10, 2013

                               __________

         Printed for the use of the Committee on Armed Services






        Available via the World Wide Web: http://www.fdsys.gov/

                               __________





                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                  (ii)


                                     
                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                            january 31, 2013

Nomination of Hon. Charles T. Hagel to be Secretary of Defense...     1

Statements of:

Nunn, Hon. Sam, U.S. Senator from the State of Georgia, Retired..     6
Warner, Hon. John, U.S. Senator from the State of Virginia, 
  Retired........................................................     9
Hagel, Hon. Charles T., to be Secretary of Defense...............    12

                           february 12, 2013

Business Meeting to Consider the Nomination of the Honorable 
  Charles T. Hagel to be the Secretary of Defense................   313

                           february 14, 2013

Nominations of GEN Lloyd J. Austin III, USA, for Reappointment to 
  the Grade of General and to be Commander, U.S. Central Command; 
  and GEN David M. Rodriguez, USA, for Reappointment to the Grade 
  of General and to be Commander, U.S. Africa Command............   355

Statements of:

Austin, GEN Lloyd J., III, USA, for Reappointment to the Grade of 
  General and to be Commander, U.S. Central Command..............   360
Rodriguez, GEN David M., USA, for Reappointment to the Grade of 
  General and to be Commander, U.S. Africa Command...............   361

                           february 28, 2013

Nominations of Hon. Alan F. Estevez to be Principal Deputy Under 
  Secretary of Defense for Acquisition, Technology, and 
  Logistics; Mr. Frederick E. Vollrath to be Assistant Secretary 
  of Defense for Readiness and Force Management; and Mr. Eric K. 
  Fanning to be Under Secretary of the Air Force.................   529

Statements of:

Estevez, Hon. Alan F., to be Principal Deputy Under Secretary of 
  Defense for Acquisition, Technology, and Logistics.............   532
Vollrath, Mr. Frederick E., to be Assistant Secretary of Defense 
  for Readiness and Force Management.............................   533
Fanning, Mr. Eric K., to be Under Secretary of the Air Force.....   534

                                  iii
                             april 11, 2013

Nomination of Gen. Philip M. Breedlove, USAF, for Reappointment 
  to the Grade of General and to be Commander, U.S. European 
  Command and Supreme Allied Commander, Europe...................   687

Statement of:

Breedlove, Gen. Philip M., USAF, for Reappointment to the Grade 
  of General and to be Commander, U.S. European Command, and 
  Supreme Allied Commander, Europe...............................   692

                             july 18, 2013

Nominations of GEN Martin E. Dempsey, USA, for Reappointment to 
  the Grade of General and Reappointment as Chairman of the Joint 
  Chiefs of Staff; and ADM James A. Winnefeld, Jr., USN, for 
  Reappointment to the Grade of Admiral and Reappointment as Vice 
  Chairman of the Joint Chiefs of Staff..........................   765

Statements of:

Dempsey, GEN Martin E., USA, for Reappointment to the Grade of 
  General and Reappointment as Chairman of the Joint Chiefs of 
  Staff..........................................................   769
Winnefeld, ADM James A., Jr., USN, for Reappointment to the Grade 
  of Admiral and Reappointment as Vice Chairman of the Joint 
  Chiefs of Staff................................................   772

                             july 25, 2013

Nominations of Hon. Stephen W. Preston to be General Counsel of 
  the Department of Defense; Hon. Jon T. Rymer to be Inspector 
  General of the Department of Defense; Ms. Susan J. Rabern to be 
  Assistant Secretary of the Navy for Financial Management and 
  Comptroller; and Mr. Dennis V. McGinn to be Assistant Secretary 
  of the Navy for Energy, Installations, and Environment.........   949

Statements of:

Warner, Hon. John, U.S. Senator from the State of Virginia, 
  Retired........................................................   953
Preston, Hon. Stephen W., to be General Counsel of the Department 
  of Defense.....................................................   956
Rymer, Hon. Jon T., to be Inspector General of the Department of 
  Defense........................................................   957
Rabern, Ms. Susan J., to be Assistant Secretary of the Navy for 
  Financial Management and Comptroller...........................   958
McGinn, Mr. Dennis V., to be Assistant Secretary of the Navy for 
  Energy, Installations, and Environment.........................   959

                             july 30, 2013

Nominations of ADM Cecil E.D. Haney, USN, for Reappointment to 
  the Grade of Admiral and to be Commander, U.S. Strategic 
  Command; and LTG Curtis M. Scaparrotti, USA, to be General and 
  Commander, United Nations Command/Combined Forces Command/U.S. 
  Forces Korea...................................................  1081

Statements of:

Haney, ADM Cecil E.D., USN, for Reappointment to the Grade of 
  Admiral and to be Commander, U.S. Strategic Command............  1084
Scaparrotti, LTG Curtis M., USA, to be General and Commander, 
  United Nations Command/Combined Forces Command/U.S. Forces 
  Korea..........................................................  1085

                           september 19, 2013

Nominations of Hon. Deborah Lee James to be Secretary of the Air 
  Force; Hon. Jessica Garfola Wright to be Under Secretary of 
  Defense for Personnel and Readiness; Mr. Frank G. Klotz to be 
  Under Secretary of Energy for Nuclear Security; Mr. Marcel J. 
  Lettre II to be Principal Deputy Under Secretary of Defense for 
  Intelligence; and Mr. Kevin A. Ohlson to be a Judge of the U.S. 
  Court of Appeals for the Armed Services........................  1157

Statements of:

Conrad, Hon. Kent, U.S. Senator from the State of North Dakota, 
  Retired........................................................  1161
James, Hon. Deborah Lee, to be Secretary of the Air Force........  1163
Wright, Jessica Garfola, to be Under Secretary of Defense for 
  Personnel and Readiness........................................  1164
Klotz, Mr. Frank G., to be Under Secretary of Energy for Nuclear 
  Security.......................................................  1166
Lettre, Mr. Marcel J., II, to be Principal Deputy Under Secretary 
  of Defense for Intelligence....................................  1168
Ohlson, Mr. Kevin A., to be a Judge of the U.S. Court of Appeals 
  for the Armed Services.........................................  1169

                            october 10, 2013

Nominations of Mr. Michael D. Lumpkin to be Assistant Secretary 
  of Defense for Special Operations and Low Intensity Conflict; 
  Hon. Jamie M. Morin to be Director of Cost Assessment and 
  Program Evaluation (CAPE), Department of Defense; and Hon. Jo 
  Ann Rooney to be Under Secretary of the Navy...................  1353

Statements of:

Hoeven, Hon. John, U.S. Senator from the State of North Dakota...  1358
Morin, Hon. Jamie M., to be Director of Cost Assessment and 
  Program Evaluation, Department of Defense......................  1361
Lumpkin, Mr. Michael D., to be Assistant Secretary of Defense for 
  Special Operations and Low Intensity Conflict..................  1362
Rooney, Hon. Jo Ann, to be Under Secretary of the Navy...........  1363

APPENDIX.........................................................  1485


     NOMINATION OF HON. CHARLES T. HAGEL TO BE SECRETARY OF DEFENSE

                              ----------                              


                       THURSDAY, JANUARY 31, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
McCaskill, Udall, Hagan, Manchin, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Inhofe, McCain, 
Sessions, Chambliss, Wicker, Ayotte, Fischer, Graham, Vitter, 
Blunt, Lee, and Cruz.
    Committee staff members present: Richard D. DeBobes, staff 
director; Travis E. Smith, chief clerk; Leah C. Brewer, 
nominations and hearings clerk; and Mary J. Kyle, legislative 
clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Jonathan S. Epstein, counsel; Gabriella E. Fahrer, counsel; 
Richard W. Fieldhouse, professional staff member; Creighton 
Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Jason W. Maroney, counsel; Thomas K. 
McConnell, professional staff member; William G.P. Monahan, 
counsel; Michael J. Noblet, professional staff member; Roy F. 
Phillips, professional staff member; John H. Quirk V, 
professional staff member; Robie I. Samanta Roy, professional 
staff member; Russell L. Shaffer, counsel; and William K. 
Sutey, professional staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director; Adam J. Barker, professional staff member; 
Steven M. Barney, minority counsel; Thomas W. Goffus, 
professional staff member; Ambrose R. Hock, professional staff 
member; Anthony J. Lazarski, professional staff member; Daniel 
A. Lerner, professional staff member; Lucian L. Niemeyer, 
professional staff member; and Robert M. Soofer, professional 
staff member.
    Staff assistants present: Jennifer R. Knowles, Mariah K. 
McNamara, and Brian F. Sebold.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeff Fatora, assistant to Senator 
Nelson; Jason Rauch, assistant to Senator McCaskill; Casey 
Howard, assistant to Senator Udall; Brian Nagle, assistant to 
Senator Hagan; Patrick Hayes, assistant to Senator Manchin; 
Chad Kreikemeier, assistant to Senator Shaheen; Elana Broitman, 
assistant to Senator Gillilbrand; Ethan Saxon, assistant to 
Senator Blumenthal; Marta McLellan Ross, assistant to Senator 
Donnelly; Nick Ikeda, assistant to Senator Hirono; Jim Catella, 
assistant to Senator King; Paul C. Hutton IV, assistant to 
Senator McCain; T. Finch Fulton and Lenwood Landrum, assistants 
to Senator Sessions; Joseph Lai, assistant to Senator Wicker; 
Brad Bowman, assistant to Senator Ayotte; Craig Abele, 
assistant to Senator Graham; Charles Prosch, assistant to 
Senator Blunt; Peter Blair, assistant to Senator Lee; and 
Brooke Bacak, assistant to Senator Cruz.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning. The committee meets today to 
consider the nomination of former Senator Chuck Hagel to be 
Secretary of Defense.
    Before we begin, I want to first welcome Senator Inhofe as 
the new ranking Republican on our committee, succeeding Senator 
McCain. Senator McCain has been a great partner over the last 6 
years, and I thank him for all that he has done to get our 
bills enacted, for all of his leadership on a host of issues, 
for his support of the work of this committee, and for always 
keeping our hearings lively.
    Senator Inhofe has shown his strong commitment to the 
national defense over his 20 years on this committee, and I 
know that we are going to work well together to continue the 
bipartisan tradition of the committee.
    We're also pleased to welcome the eight Senators who are 
joining the committee this year, both those who are new to the 
Senate and those who are new to our committee--Senators 
Donnelly, Hirono, Kaine, and King on the Democratic side, and 
Senators Blunt, Cruz, Fischer, and Lee on the Republican side. 
You will all find that this is a wonderful committee where we 
work across party lines to support our troops and their 
families and their national defense mission.
    I would also like to pause for a moment to offer my thanks 
and the thanks of our committee to Secretary Leon Panetta, who 
delayed his retirement and his return to California to serve 
our country first as Director of Central Intelligence and then 
as Secretary of Defense. Secretary Panetta has provided a 
steady hand at the Department of Defense (DOD) through 2 very 
difficult years, and has earned our great respect and our 
appreciation.
    Finally before we get started, I would like to announce 
that the committee will be holding hearings next week on 
Benghazi and the week thereafter on the impact of the sequester 
on DOD.
    Senator Hagel, we welcome you to the Senate Armed Services 
Committee and as an old friend of those of us with whom you 
served during your years in the Senate. There are few jobs that 
are more demanding than the position to which you have been 
nominated. The hours are long and extremely challenging, and 
require sacrifices from both the Secretary and his family.
    We traditionally give our nominees an opportunity to 
introduce their families at these hearings, and we would 
welcome your doing so during your opening statement.
    If confirmed, Senator Hagel would be the first former 
enlisted man and the first veteran of the Vietnam war to serve 
as Secretary of Defense. You cannot read Senator Hagel's 
account of his military service and not be impressed by it. As 
Senator Hagel explained a few years ago, ``Probably most 
fundamental for me when we talk of going to war, we need to 
think it through carefully, not just for the political, and the 
geopolitical, and the diplomatic, and the economic 
consequences, and those are important. But at least for me,'' 
he said, ``this old infantry sergeant thinks about when I was 
in Vietnam in 1968, someone needs to represent that perspective 
in our Government as well. The people in Washington make the 
policy, but it's the little guys who come back in the body 
bags.''
    Senator Hagel's background provides an invaluable 
perspective, not only with respect to the difficult decisions 
and recommendations that a Secretary of Defense must make 
regarding the use of force and the commitment of U.S. troops 
overseas, but also with respect to the day-to-day decisions 
that a secretary must make to ensure that our men and women in 
uniform and their families receive the support and assistance 
that they need and deserve.
    It would be a positive message for our soldiers, sailors, 
airmen, and marines in harm's way around the world to know that 
one of their own holds the highest office in DOD, and that he 
has their backs.
    Senator Hagel, you would be in a position to make key 
recommendations regarding Afghanistan, where we are down to the 
pre-surge level of troops with 66,000 military personnel in the 
country. The Secretary of Defense is called upon to advise the 
President on the size and mission of a post-2014 residual 
force, and the pace of the drawdown between now and the end of 
2014. The key to this transition is ensuring the readiness and 
ability of Afghanistan security forces to take over the defense 
of their own country. I have always believed that should be our 
main mission and its key to success.
    During my trip to Afghanistan with Senator Jack Reed last 
month, we heard from U.S. commanders on the ground that 
Afghanistan security forces are operating on their own on most 
operations, including conducting more than 85 percent of 
operations with limited or no U.S. support in the difficult 
Regional Command East. Yet difficult obstacles remain to the 
process of reducing our forces and shifting responsibility to 
Afghanistan forces, including the difficulty of negotiating a 
status of forces agreement, including recent reports that the 
Afghanistan Government might slow down a successful program of 
growing and training the Afghanistan Local Police, and 
including questions about the current plan to reduce the size 
of the Afghanistan National Security Forces from 352,000 to 
around 230,000 after 2015.
    We face a number of new and growing threats elsewhere in 
the world, such as the ongoing threat posed by Iran's nuclear 
weapons program and the increasingly destructive civil war in 
Syria with the risk that conflict could result in the loss of 
control over that country's substantial stockpile of chemical 
weapons. There's also the continuing instability in other 
countries affected by the Arab Spring, the growth of al Qaeda 
affiliates in ungoverned regions, including Yemen, Somalia, and 
North Africa, and the continued unpredictable behavior of a 
nuclear armed regime in North Korea.
    We face these challenges at a time when the DOD budget is 
under a unique pressure as a result of cuts previously agreed 
upon by Congress, the budgeting by Continuing Resolution (CR), 
and the impending threat of a sequester. Secretary Panetta has 
said that a sequester would be devastating for our military. 
Senator Hagel's views today on the CR and the sequester will be 
of great interest to this committee and to the Nation.
    Those of us who have served with Senator Hagel in the 
Senate know that he is a man who is not afraid to speak his 
mind. Senator Hagel has made a number of statements over the 
course of his career which committee members will ask him about 
during today's hearing. For example, Senator Hagel has stated 
that unilateral sanctions against Iran, ``are exactly the wrong 
approach,'' and that, ``they are the worst thing we can do 
would be to try to isolate Iran''. I believe that while 
effective multilateral sanctions are preferable, that 
unilateral sanctions are an important part of the approach that 
the Obama administration has followed, and that Congress has 
supported. It appears that sanctions are producing tremendous 
pressure on Iran.
    Another statement which has raised concern is Senator 
Hagel's recommendation that we conduct, ``direct, 
unconditional, and comprehensive talks with the Government of 
Iran''. Now while there is value in communicating with our 
adversaries, the formulation used by Senator Hagel seemed to 
imply a willingness to talk to Iran on some issues that I 
believe that most of us would view as non-negotiable, and, 
therefore, any willingness to talk to Iran would need to be 
highly conditional. Senator Hagel's reassurance to me in my 
office that he supports the Obama administration's strong 
stance against Iran is significant, and we look forward to 
hearing from Senator Hagel today in some depth on that subject.
    We will also be interested in Senator Hagel's addressing 
troubling statements that he has made about Israel and its 
supporters here in the United States, a statement in 2008 that 
our policy of non-engagement with the Syrians, ``has isolated 
us more than the Syrians,'' and a 2009 statement that ``we 
should not isolate Hamas, a terrorist organization''.
    There is much to be explored at this hearing, but as we 
struggle with the difficult security challenges facing our 
Nation, the President needs to have a Secretary of Defense in 
whom he has trust, who will give him unvarnished advice, a 
person of integrity, and one who has a personal understanding 
of the consequences of decisions relative to the use of 
military force. Senator Hagel certainly has those critically 
important qualifications to lead DOD.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. First of all, I 
would like to echo your remarks about Secretary Panetta and the 
work that he has done. I do not see him here today, but I do 
recall when he was first nominated, I was probably one of the 
first phone calls to him, and I have enjoyed working with him.
    With Senator McCain, I feel the same way. I will certainly 
continue to depend on his counsel, and you and I have worked 
very well together in the past.
    Mr. Chairman, before I continue my opening statement, I 
would like to raise a concern about the sufficiency of 
materials provided to this committee by our nominee. Senator 
Hagel was requested to provide the speeches he has delivered 
over the last 5 years, yet his initial submission was for only 
four speeches. Even though, as was noticed by Senator Cruz that 
he had honoraria for 12 speeches, but submitted 4 speeches. We 
received some more, but only late last night. I think it would 
have been a lot more helpful if we had received them before 
that, and I am hoping that we will be able to get that 
information before we have to cast votes on this nominee. Thank 
you, Mr. Chairman.
    The President's nomination of Senator Hagel to serve as the 
next Secretary of Defense comes at a critical juncture in our 
military and national security interests. Senator Hagel is a 
good man who has a record of service. I first learned of that 
when he was first elected, and I have been a great admirer of 
the time that he spent in Vietnam and the sacrifices that he 
made.
    While his service is commendable, the fate of his 
nomination should be decided by the totality of his record. It 
is the votes that he has cast, the statements that he has made 
over the many years of his career that will inform us as to his 
judgment, his view of America's role in the world, and his view 
of the military required to support that role.
    As I told Senator Hagel in my office over 2 weeks ago, that 
after a long and careful review of his record, and there are 
things that he has said and there are things that I have 
personally experienced with him, that we are too 
philosophically opposed on the pressing issues facing our 
country, for me to support his nomination. Therefore, I told 
him I would not be supporting his nomination.
    His record demonstrates what I view as a lack of steadfast 
opposition to policies that diminish U.S. power and influence 
throughout the world, as well as a recent trend of policy 
reversals that seem based on political expediency rather than 
on core beliefs.
    On many of the security challenges facing U.S. interests 
around the world, Senator Hagel's record is deeply troubling 
and out of the mainstream. Too often, it seems, he is willing 
to subscribe to a worldwide view that is predicated on 
appeasing our adversaries while shunning our friends. I 
remember quoting Hiram Mann, who said, ``No man survives when 
freedom fails, the best men rot in filthy jails, and those who 
cry `appease, appease' are hanged by those they tried to 
please.''
    I am mentioning a few of these things because they are 
going to come out in this hearing. In 2000, an overwhelming 
majority of Senators sent a letter to President Clinton 
reaffirming our solidarity with Israel. I was one of them who 
carried that letter around. I remember it well. Senator Hagel 
was one of just four who refused to sign that letter, and I am 
sure he will want to comment about that.
    In 2001, he was one of just two Senators who voted against 
a bill extending harsh sanctions against Iran. A year later, he 
urged the Bush administration to support Iran's membership in 
the World Trade Organization. Senator Hagel voted against a 
resolution designating Iran's Revolutionary Guard Corp, a group 
responsible for killing American soldiers in Iraq and 
Afghanistan, as a terrorist organization. On multiple 
occasions, he has advocated for direct negotiations with Iran, 
a regime that continues to repress its people, doggedly pursue 
a nuclear weapon capability, and employ terrorist proxies, 
including Hamas, Hezbollah, who threaten the security of Israel 
and the region.
    Senator Hagel has also been an outspoken supporter of the 
nuclear disarmament and the Global Zero movement. We are very 
sensitive to that, and we know that the President has said many 
times he wants a nuclear free world, and I know that Senator 
Hagel is right there with him. But at a time when North Korea's 
belligerent actions threaten our allies with their nuclear 
capabilities and security of our own Nation and that of our 
allies, why would we want to unilaterally disarm ourselves of 
nuclear capability?
    Of late, however, Senator Hagel has expressed views in 
meetings with Senate colleagues, I have been informed, and 
through the press that appear glaringly at odds with many of 
his long-held positions, particularly on issues dealing with 
Israel, Iran, and our nuclear arsenal. This apparent 
willingness to walk back or alter his position, possibly for 
the sake of political expediency on such important issues, is 
deeply troubling and sends a concerning message to our allies 
and adversaries alike.
    Though I respect Senator Hagel, his record to date 
demonstrates that he would be a staunch advocate for the 
continuation of the misguided policies of the President's first 
term. Retreating from America's unique global leadership role 
and shrinking the military will not make America safer. On the 
contrary, it will embolden our enemies, endanger our allies, 
and provide opportunity for nations that do not share our 
interests to fill a global leadership vacuum we leave behind.
    It is for these reasons that I believe that he is the wrong 
person to lead the Pentagon at this perilous and consequential 
time.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    We have two former chairmen of this committee with us to 
introduce Senator Hagel. No Senator has had two dearer friends 
or better mentors than I have had with Senators Nunn and 
Warner. I just want to welcome them back to this committee. I 
do not have to tell them that they are among dear, dear 
friends, those of us who have known them and who have worked 
with them. It is a real, real treat actually to welcome you 
back to the committee.
    I think I will call on you, Senator Nunn, first. I think we 
will call on you alphabetically. I do not have any better way 
to do it. Sam, welcome back.

  STATEMENT OF HON. SAM NUNN, U.S. SENATOR FROM THE STATE OF 
                        GEORGIA, RETIRED

    Senator Nunn. First, for the record, seniority and age are 
two different things. [Laughter.]
    Chairman Levin, Ranking Member Inhofe, members of the Armed 
Services Committee, I am honored to join John Warner in 
presenting our friend, Chuck Hagel, to the committee and 
recommending that Chuck be confirmed as our Nation's 24th 
Secretary of Defense.
    I think it is worth noting that 68 years ago this month, 
John Warner enlisted in the U.S. Navy to fight in World War II. 
That was the start of his great career of public service, and 
John, I am very proud to be here by your side.
    Mr. Chairman, I spent a lot of my Senate career sitting in 
your seat waiting on a quorum. Congratulations on not having to 
do that today. [Laughter.]
    Chairman Levin. I do not how long it will last, but thanks 
for pointing it out.
    Senator Nunn. Mr. Chairman, I think it should be noted that 
you and Senator McCain have effectively guided this committee 
in its important role as a compelling and absolutely essential 
voice for a strong and effective defense. Together you have 
managed to pass authorization bills, even during contentious 
times. I thank you both for your dedicated service to our 
Nation. I am confident, Mr. Chairman and Senator Inhofe, that 
you will continue this tradition, and that Senator McCain will 
still be a very valuable member and voice on this committee.
    I believe that our Nation is fortunate to have a nominee 
for Secretary of Defense with the character, the experience, 
the courage, and the leadership that Chuck Hagel would bring to 
this position. First, Chuck is acutely aware that even in an 
age of rapid technological advances, our military capability 
and effectiveness depend on the quality and the morale of the 
people who serve our Nation in uniform, as well as the families 
that support them.
    Chuck received two Purple Hearts in Vietnam, and when he 
returned home, he continued to fight for veterans and for 
Active Duty military personnel. He knows that our people are 
our strongest assets. Second, Chuck's experience in Vietnam 
shaped his life and his perspective. War for Chuck Hagel is not 
an attraction. I am confident that if confirmed he will ask the 
hard and the smart questions before sending troops into battle.
    Chuck Hagel knows that the United States has vital 
interests that are worth fighting for and dying for. He also 
knows that war should be a last resort and that our Nation must 
effectively use all of our tools, not limited only to our 
military, to protect our important and to protect our vital 
interests.
    Certainly, Mr. Chairman, there is a tension in these 
values, but it is a tension that we should welcome in the 
thought process and in the advice that our Secretary of Defense 
gives to our Commander in Chief and to this Congress.
    From our service together on the Defense Policy Board in 
recent years, I know that Chuck Hagel has a clear world view, 
and that it aligns with the mainstream of U.S. foreign and 
defense policy, and also with President Obama. Chuck Hagel 
believes that we must build and preserve American strength as a 
force for good in the world. He recognizes that protecting our 
interests requires strong allies and friends, as well as strong 
American leadership.
    Third, Chuck has the depth of experience and the leadership 
skills required to handle this tough job. There is certainly no 
shortage of security challenges around the world, as this 
committee knows, and as you have enumerated this morning, Mr. 
Chairman. A very large and impressive group of former Cabinet 
officials and public servants from both sides of the aisle have 
said that they trust Chuck Hagel with this important 
responsibility. I strongly agree.
    Fourth, on the fiscal side, I am confident that Chuck will 
be a powerful advocate for a common sense approach, both within 
the administration and here on Capitol Hill regarding fiscal 
challenges to the defense budget. He understands that our 
defense capabilities are being threatened on two budget fronts: 
first, sequestration with its damaging across-the-board, 
upfront budget cuts, and second, rapidly rising costs within 
the Department's budget, including, but not limited to, health 
care, personnel, and retirement costs.
    Mr. Chairman, members of the committee, I believe that 
Chuck will work effectively with this committee and Congress in 
meeting these budget challenges while protecting our people, 
protecting our capabilities, and also while ensuring that the 
United States has the strongest military in the world.
    Chuck Hagel was a soldier and a Senator, but he has been 
also a highly successful executive in both the public and 
private sectors. He built a successful company from the ground 
up. He is a man who knows how to prioritize, and he knows how 
to make tough decisions. He will listen to and carefully 
consider the views of our military and civilian leaders, and 
guide them as necessary.
    Fifth, I believe that Chuck Hagel will be a balanced and 
responsible voice on nuclear weapons policy. President Reagan 
said it often and said it well: ``a nuclear war cannot be won, 
and it must not be fought.''
    Mr. Chairman, as this committee knows, the risk of a global 
nuclear war has thankfully, substantially declined since the 
breakup of the Soviet Union. But with nine nations possessing 
nuclear weapons, with nuclear weapons usable material and 
knowledge spread across the globe, and with terrorists ready to 
use a nuclear weapon if they manage to buy, steal, or make one, 
we face enormous risk that a nuclear weapon will be used. If 
proliferation continues in countries like Iran and North Korea, 
and if we do not secure nuclear materials and weapons globally, 
the odds of use will go up even more.
    Six years ago George Schultz, Bill Perry, Henry Kissinger, 
and I made the argument that we reduce reliance on nuclear 
weapons as a vital contribution to preventing that 
proliferation, keeping them out of dangerous hands, and 
ultimately ending them as a threat to the world. Two-thirds of 
living former Secretaries of State and Defense, and national 
security advisors have agreed with the vision and the steps 
that we outlined, including substantial work on verification 
and enforcement.
    Mr. Chairman, I hope that all members of the committee and 
the Senate will read the recent statement by four credible and 
very experienced Americans--Ambassador Tom Pickering, 
Ambassador Richard Burt, General James Cartwright, and General 
John Sheehan--about their work with Chuck Hagel on nuclear 
weapons. They made it abundantly clear that they oppose 
unilateral moves. They support bilateral negotiations. They 
support verifiable U.S.-Russian arms reductions to be followed 
by multilateral negotiations, bringing other nuclear weapons 
countries into a serious and verifiable process of reductions.
    In closing, Mr. Chairman, there are many essential 
characteristics and values that a Secretary of Defense should 
possess in our dangerous and challenging world. Let me name 
just two or three that I think are very important.
    First, someone who is well-informed, has an open mind, 
engages in critical thinking, who is capable of and who seeks 
out independent thought. Second, someone who sets aside fixed 
ideologies and biases to honestly evaluate all options, and 
then provides his or her candid judgment to the President and 
to Congress. Third, someone who pays attention to people with 
the best ideas, regardless of their party affiliation. No one 
is perfect. We all know that. But Chuck Hagel comes as close as 
anyone I know to having all of these qualities.
    Mr. Chairman, Senator Inhofe, and members of the committee, 
I served for 24 years on this important committee, and I 
recognize that much has changed since I retired 16 years ago. I 
continue to believe, however, that every major problem we face 
today requires the best input from both political parties if we 
are to arrive at a solution. I believe that Chuck Hagel will 
seek that input. I urge his support by this committee, and I 
urge the confirmation of his nomination by the U.S. Senate.
    I thank the chairman.
    Chairman Levin. Thank you very much, Senator Nunn.
    Senator Warner.

 STATEMENT OF HON. JOHN WARNER, U.S. SENATOR FROM THE STATE OF 
                       VIRGINIA, RETIRED

    Senator Warner. Thank you, Mr. Chairman. It is a moving 
experience for me to reenter this room. I served on this 
committee for 30 years. In that period of time, Senator Nunn 
was the chairman, and I was the ranking. But I want to say to 
you and Jim Inhofe--Jim and I have been good friends and we 
worked together not only on this committee, but other 
committees. You will be a splendid ranking member. You follow 
in the steps of my dear and valued friend of so many years, 
John McCain.
    The leadership of this committee throughout my 30 years in 
the Senate has been drawn from the ranks of the strongest and 
the best of its membership. We have it today, and I have every 
reason we will have it tomorrow.
    I would like to say a word to the new members of this 
committee. As I look back over a very fortunate record of 
public service for many years, no chapter of my career was more 
important than service on this committee. You will carry with 
you for the rest of your life the recollections of the work 
that you have done for one of America's most valued assets, the 
men and the women and their families of the armed services of 
the United States.
    I have written out a nice long statement, and then last 
night late I received Sam Nunn's statement and Chuck Hagel's 
statement, and I said that I felt that another statement just 
would not do. I would rather say just a few words from the 
heart about the importance of what we have by way of decision 
before all of us today.
    I thank Senator Nunn for that reference of 68 years ago in 
the Navy. I did no more than every other kid on my block. We 
all went. But I would like to remind you that a half century 
ago, you served in the Coast Guard. So, Grandpa, here is 
another grandpa. [Laughter.]
    Good friends, we thank Chuck Hagel, and Mrs. Hagel, and his 
family because if confirmed, there is an enormous commitment by 
the family to this position. Having known Lilibet and slightly 
your children, you have made that decision to offer yourself 
for continued public service. Public service is a privilege. I 
have always regarded it as such.
    I will not give a long statement. This statement by Senator 
Hagel will soon be shared with you. I read it through not once, 
twice, but again this morning. I say this carefully, I have 
read the statements that have been placed before the members of 
this committee for those 30 years. I have never read a more 
carefully prepared statement, a more forthright statement, and 
one that has no hedges or deviations. He hits firm on those 
issues that will make the decision in your minds and that of 
your colleagues as to whether or not he is qualified to take on 
this very important assignment.
    I first entered the Pentagon in 1969 during the war in 
Vietnam under Melvin Laird. Jim Schlesinger followed, and I 
have worked with every Secretary of Defense since that period 
of time, all different, all with their strengths and indeed 
some of their weaknesses. But set forth in this is a series of 
commitments to you as a committee, to the members of the full 
Senate, and to the American public as precisely what his goals 
are and what he will do, how he will serve the President, how 
he will give the President his best advice. I know Chuck to 
give it very strongly.
    I'm going to talk a little bit about Chuck Hagel, the man 
that I served with for 12 years. My distinguished colleague and 
long-time friend, Sam, had gone when Chuck arrived at the 
Senate. The first year he was here, we had the defense 
authorization bill on the floor. In those days, as it is today, 
that bill goes on that floor, that bill stays on that floor, 
sometimes a couple of days, sometimes a week, sometimes broken 
up, but we get it through. When it's done, we go immediately 
back to our committee spaces and begin to write that bill and 
get it to the printer so that we can go to conference. How many 
times have we done that together, Senator Nunn, Senator Levin, 
Senator McCain, Senator Inhofe, many times.
    The first year he was here, he watched that process, and 
when I had taken the staff back to the committee room, 
surprisingly he showed up. I didn't know him that well, 
although I had studied his biography and I wanted to get to 
know him because of my deep and abiding interesting in the 
Vietnam period, having served for 5 years in that period as 
Under Secretary of the Navy.
    He strolled into the room and I introduced him to the 
people. He said to the staff, you are one of the most 
impressive group of young people I've ever seen. I learned a 
lot. He shared some of histories as a simple, but elegant, 
soldier that he was. That is the way he started, and thereafter 
he voted for every single final passage of the authorization 
bill, every single final passage of the appropriation bill.
    He was at home and learned in that generation of Vietnam, 
and I am so proud to have the affiliation of having been, yes, 
in comparative safety at the Pentagon. But I did go to the 
field of battle and see these young men and some women who 
engaged in that struggle. Chuck Hagel brings with him the 
experience of having come home to an America that was quite 
different than what I experienced when my generation came home 
from World War II. We were welcomed with open arms. America at 
that time in Vietnam, and how well John McCain can remember 
this, was very divided. When you wore your uniform back home, 
it did not receive the same respect that it deserved for the 
sacrifices that you and your colleagues had committed. Chuck 
will never forget that. I will never forget it. John will never 
forget it.
    Today we welcome home and we do it with the fullest heart 
the young men and women who serve, but there have been times in 
history when that didn't happen, and that was one. That honed 
him to be prepared to take on his responsibilities as he 
addresses the declining budget situation, which is going to be 
a challenge. I am absolutely certain that he will stand up and 
fight as hard as two of his predecessors--Leon Panetta you 
mentioned today, and Robert Gates. They gave their President 
loyalty, but they gave him their best advice and tough advice, 
and fought for their troops, and drilled down to what they have 
to maintain whatever budget. Sequester is not the route. But 
whatever budget, he will maintain morale and combat readiness. 
Also, ladies and gentlemen, that pillar of strength of our 
military system, the All-Volunteer Force.
    We had drafts in Vietnam. We saw the effect of that. We 
decided as a Nation to take a gamble, to let every person who 
wished to wear the uniform, giving that opportunity and to 
volunteer. No one is forced in there. That has to be 
maintained. This man has the experience, gravitas, and the 
strength to protect the All-Volunteer Force.
    I also was deeply impressed by the Senate and the manner in 
which it confirmed John Kerry. John Kerry was also in that 
generation, and he served his trials and tribulations, and came 
home and faced that public in the same way Chuck did. The 
Senate confirmed him with a very strong vote. They sent him 
away ready to take on the enormity of his responsibility.
    Now I mention that because in my experience, I have seen a 
good deal of camaraderie, but a good deal of competition 
between the Secretaries of Defense and the Secretaries of 
State. It is just sort of built in there, and sometimes a lot 
of sand gets in that gear box. But it is important to the 
United States that they, having the major jurisdiction over 
most of the policy issues, work as a team.
    John Kerry and Chuck Hagel are a band of brothers out of 
Vietnam with that special bond, and I am sure that you will 
utilize that and remember it, and make those two departments 
performs their functions to best serve the President and to 
best serve the country.
    I have pretty well said everything I should say. I want to 
be brief because it is important that this committee pursue its 
work. But again, Bob Gates, Leon Panetta set the bar for this 
century of those who take on this job. You mentioned your long 
friendships, Chuck, and how you know both. I would keep close 
contact. They have the experience to deal with this President 
of the United States, and you are the President's choice.
    Folks, there is an old saying in the combat Army infantry 
and Marine Corps. ``Certain men are asked to take the point,'' 
which means to get out and lead in the face of the enemy. Chuck 
Hagel did that as a sergeant in Vietnam. If confirmed, Chuck 
Hagel will do it again, this time not before a platoon, but 
before every man and woman and their families in the armed 
services. You will lead them. They will know in their hearts we 
have one of our own.
    You are on your own, and good luck.
    Senator Hagel. Thank you. [Laughter.]
    Chairman Levin. We thank you both, Senator Warner, Senator 
Nunn, for your extraordinarily powerful introductions. I just 
wish every member of the Senate and every American could have 
heard, and I hope will hear and read about what you said here 
today about Chuck Hagel. I also noticed there is another former 
Senator, who was a member of that band of brothers, who is with 
us today. I just noticed in the audience Max Cleland is here, 
and I want to welcome you, Max, too, as an old, old friend of 
this committee, and the Senate, and of the Nation.
    Let me now call on Senator Hagel. Senator Warner, Senator 
Nunn, again, thank you for your introductions, and you are free 
to get back to your lives or to stay as you wish.
    Senator Hagel.

 STATEMENT OF HON. CHARLES T. HAGEL, TO BE SECRETARY OF DEFENSE

    Senator Hagel. Thank you, Chairman Levin, Ranking Member 
Inhofe, and distinguished members of the committee. I am 
honored to come before you today as the President's nominee to 
be the Secretary of Defense.
    First, as you suggested, Mr. Chairman, let me introduce my 
family--my wife, Lilibet. Our son Ziller, and our daughter, 
Allyn, are not with us today. Our son, Ziller, claims he's 
taking a test. We will confirm that later. But both are a son 
and daughter that Lilibet and I are very proud of. I think like 
any proud father and any proud mother, you all know how I feel 
about that as you have the same feelings about your children. 
It is the same way Lilibet and I feel about ours.
    I also want to introduce my brother, Tom, who served with 
me in Vietnam, my brother, Mike, who is our number three 
brother, and I might add, who actually possesses any talent our 
family has. He has in the Pentagon 10 paintings as Chairman of 
the Air Force Artist Guild over the years, and they are hanging 
in different locations in the Pentagon. We have one brother of 
some acclaim, and one of us did make it, my brother, Mike. 
Mike's son is sitting behind him, Josh. He is one of three 
children that Mike has.
    We have here also cousins, many friends, and people I owe 
money to. [Laughter.]
    Who knows who else since I have received some publicity 
over the weeks.
    I want to also thank my friends, Sam Nunn and John Warner. 
I want to thank them for their support, their encouragement, 
and their friendship over many years. As each of you who had 
the privilege of serving with those Senators, I, too, add my 
thanks for their tremendous service to our country. These two 
distinguished Americans represent what is best about American 
public service and responsible bipartisanship. They have 
embodied both in their careers, long distinguished careers, and 
are models for each of us.
    Of course to my family and friends, and my fellow veterans 
who are here, as has been noted, Max Cleland, Jan Scruggs, good 
friends, veterans from all wars, who are here today who I 
worked with for many, many years. I am grateful to them. Not 
just to those friends, and supporters, and fellow veterans who 
are here, but those who are not, thank you.
    A life is only as good as the family and the friends you 
have and the people you surround yourself with. I also want to 
thank my friend, Leon Panetta, for his tremendous service to 
our country over so many years. If I am given the privilege of 
succeeding him, it will be a high honor.
    President Obama for his confidence and trust in me, I thank 
him. I am humbled by the opportunity and the possibility he has 
given me to serve our country once again. I fully recognize the 
immense responsibilities of the Secretary of Defense. I assured 
the President that if I am confirmed by the U.S. Senate, I will 
always do my best. I will always do my best for our Nation and 
for the men and women and their families, who are called on to 
make the enormous sacrifices of military service. Their safety, 
success, and welfare will always be at the forefront of the 
decisions I make.
    I also assured the President that I would always provide 
him with my most honest and informed advice. I make that same 
commitment to this committee and to Congress. If confirmed, I 
will reach out to the members of this committee for advice and 
collaboration. It will be a partnership because the national 
security challenges America faces require it.
    Our Nation's security is the highest priority of our 
leaders and our Government. We cannot allow the work of 
confronting the great threats we face today to be held hostage 
to partisanship on either side of the aisle, or by differences 
between the bodies represented in Articles I and II of our 
Constitution. The stakes are too high. Men and women of all 
political philosophies, and parties, and ideas die and fight 
for our country. As this committee knows so well, protecting 
our national security or committing our Nation to war can never 
become political litmus tests.
    I know Secretary Panetta has put a strong emphasis on 
reaching out to Congress. I, like Leon, come from Congress, and 
respect and understand this institution's indispensable role in 
setting policy and helping govern our country.
    We are all products of the forces that shape us. For me, 
there has been nothing more important in my life, or a more 
defining influence on my life, than my family. Whether it was 
helping my mother raise four boys after my father, a World War 
II veteran who died suddenly at age 39 on Christmas Day, or 
serving side by side with my brother Tom in Vietnam, or the 
wonderful miracle of my wife Lilibet and me being blessed with 
two beautiful children. That is who I am.
    We each bring to our responsibilities frames of reference. 
These frames of reference are formed by our life's experiences. 
They help instruct our judgments. We build out from those 
personal foundations by continually informing ourselves, 
listening, and learning.
    Like each of you, I have a record, a record that I am proud 
of. I am proud of my record not because of any accomplishments 
I may have achieved, or certainly because of an absence of 
mistakes, but rather because I have tried to build that record 
by living my life and fulfilling my responsibilities as 
honestly as I knew how and with hard work. Underpinning 
everything I have done in my life was the belief that we must 
always be striving to make our Nation a better and more secure 
place for all of our people.
    During the 12 years I had the privilege of serving the 
people of Nebraska in the U.S. Senate, I cast over 3,000 votes 
and hundreds of committee votes. I have also given hundreds of 
interviews and speeches and written a book. As you all know, I 
am on the record. I am on the record on many issues.
    But no one individual vote, no one individual quote, no one 
individual statement defines me, my beliefs, or my record. My 
overall world view has never changed: that America has and must 
maintain the strongest military in the world, that we must lead 
the international community to confront threats and challenges 
together, and take advantage of opportunities together; that we 
must use all our tools of American power to protect our 
citizens and our interests. I believe, and I always have 
believed, that America must engage in the world, not retreat 
from the world, but engage with the world. My record is 
consistent on these points.
    It is clear that we are living at a defining time. Our 
Nation is emerging from over a decade of war. We have brought 
our men and women in uniform home from Iraq, and have started 
to bring them home from Afghanistan.
    That does not mean that the threats we face and will 
continue to face are any less dangerous or complicated. In 
fact, it is quite the opposite. Recent events in Mali and 
Algeria remind us clearly of this reality. The 21st century 
complexities, technologies, economies, and threats are bringing 
the 7 billion global citizens closer together than ever before. 
As our planet adds another 2 billion people over the next 25 
years, the dangers, complications, and human demands will not 
be lessened, but rather heightened.
    Despite these challenges, I believe we also have historic 
opportunities to help build a safer, more prosperous, more 
secure, more hopeful, and more just world than maybe any time 
in history of man, for all people. Yes, the curse of 
intolerance, hatred, and danger exists around the world, and we 
must continue to be clear-eyed about this danger, and we will 
be. We will not hesitate to use the full force of the U.S. 
military in defense of our security. But we must also be smart, 
and, more importantly, wise, wise in how we employ all of our 
Nation's great power.
    America's continued leadership and strength at home and 
abroad will be critically important for our country and the 
world. While we will not hesitate to act unilaterally when 
necessary, it is essential that we work closely with our allies 
and partners to enhance America's influence and security, as 
well as global security. If confirmed, I will continue to build 
on the efforts of this administration and of former Secretary 
Gates, Secretary Panetta, and Secretary Clinton to strengthen 
our alliances and partnerships around the world. I will also 
look forward to working with my former Senate colleague--your 
colleague--and our friend, John Kerry, in this pursuit.
    As I told the President, I am committed to his positions on 
all issues of national security, specifically decisions that 
DOD is in the process of implementing now. This includes the 
Defense Strategic Guidance the President outlined in January 
2012. Allow me to very briefly address a few of those specific 
issues now.
    First, we have a plan in place to transition out of 
Afghanistan, continue bringing our troops home, and end the 
war, which has been the longest war, as we all know, in 
America's history. As you also know, discussions are ongoing 
about what the U.S. presence in Afghanistan will look like 
after 2014. The President has made clear, and I agree, that 
there should be only two functions for U.S. troops that remain 
in Afghanistan after 2014: counterterrorism, particularly to 
target al Qaeda and its affiliates, training, and advising 
Afghan forces. It is time we forge a new partnership with 
Afghanistan, with its government and, most importantly, with 
its people.
    Second, as the Secretary of Defense, I will ensure we stay 
vigilant and keep up the pressure on terrorist organizations as 
they try to expand their affiliates around the world, in places 
like Yemen, Somalia, and North Africa. At the Pentagon, that 
means continuing to invest in and build the tools to assist in 
that fight, such as Special Operations Forces and new 
intelligence, surveillance, and reconnaissance technologies. It 
will mean working hand-in-hand with our partners here at home 
across the National Security and Intelligence Communities to 
confront these and other threats, especially the emerging 
threat--the very dangerous and real threat of cyber warfare.
    Third, as I have made clear, I am fully committed to the 
President's goal of preventing Iran from obtaining a nuclear 
weapon, and I have been on record on that issue. As I have said 
in the past many times, all options must be on the table to 
achieve that goal.
    My policy has always been the same as the President's, one 
of prevention, not of containment. The President has made clear 
that is the policy of our Government. As Secretary of Defense, 
I will make sure the Department is prepared for any 
contingency. That is my job. That is my responsibility. I will 
ensure our friend and ally Israel maintains its qualitative 
military edge in the region, and will continue to support 
systems like Iron Dome, which is today saving Israeli lives 
from terrorist rocket attacks. That support I have always made 
clear and been on the record for.
    Fourth, while we pursue the reductions in our deployed 
stockpiles and launchers consistent with the New Strategic Arms 
Reduction Treaty (START), I am committed to maintaining a 
modern, strong, safe, ready, and effective nuclear arsenal. 
America's nuclear deterrent over the last 35 years has played a 
central role in ensuring global security and the avoidance of 
world war III. I have been committed to that. My record is 
clear on that. I am committed to modernizing our nuclear 
arsenal.
    As we emerge from this decade of war, we must also broaden 
our Nation's focus overseas as we look at future threats and 
challenges. As this committee knows, that is why DOD is 
rebalancing its resources towards the Asia-Pacific region. We 
are in the process of modernizing our defense posture across 
the entire region to defend and deepen our partnerships with 
traditional allies, especially Japan, South Korea, and 
Australia, to continue to deter and defend against provocations 
from states like North Korea, as well as non-state actors, and 
to expand our networks of security cooperation throughout the 
region to combat terrorism, counter proliferation, provide 
disaster relief, fight piracy, and ensure maritime security.
    I will continue this rebalancing even as we continue to 
work closely--closely--with our long-time allies of the North 
Atlantic Treaty Organization (NATO) and our friends, and with 
allies, and partners, and friends in other regions of the 
world. At the same time, we will continue to focus on 
challenges in the Middle East and North Africa where we have 
clear national interests. Rather, it is a recognition that the 
United States has been and always will be a Pacific power, and 
the Asian-Pacific area is increasingly vital to America's 
security and economic interests. That is why we must become 
even more engaged in the region over the coming years.
    Doing all of this and much more will require smart and 
strategic budget decisions. I have made it clear I share Leon 
Panetta's and our Service Chiefs' serious concerns about the 
impact sequestration would have on our Armed Forces. As someone 
who has run businesses, I know that the uncertainty and 
turbulence of the current budget climate makes it much more 
difficult to manage the Pentagon's resources and our national 
security. If confirmed, I am committed to effectively and 
efficiently using every single taxpayer's dollar the right way, 
to maintaining the strongest military in the world, and to 
working with Congress to ensure the Department has the 
resources it needs, and that the disposition of those resources 
is accountable.
    Even as we deal with difficult budget decisions, I will 
never break America's commitment to our troops, our veterans, 
and our military families. We will continue to invest in the 
well-being of our All-Volunteer Force. Working with the 
Department of Veterans Affairs (VA) and other institutions, we 
will make sure our troops and their families get the health 
care, job opportunities, and education they have earned and 
deserve, just as I did when I co-authored the post-9/11 GI Bill 
with Senators Jim Webb, Frank Lautenberg, and John Warner. This 
includes focusing on the mental health of our fighting force, 
because no one who volunteers to fight and die for this country 
should ever feel like that they have nowhere to turn. That is 
unacceptable in this country.
    In my 12 years in the Senate, my one guiding principle on 
every security decision I made and every vote I cast was always 
this--simply this: Is our policy worthy of our troops and their 
families and the sacrifices that we ask them to make? That same 
question will guide me if I am confirmed as Secretary of 
Defense.
    Our men and women in uniform and their families must never 
doubt that their leaders' first priority is them. I believe my 
record of leadership on veterans issues over the years, going 
back to my service in the Veterans Administration under 
President Reagan, demonstrates my rock-solid commitment to our 
veterans and their families.
    We must always take care of our people. That is why I will 
work to ensure that everyone who volunteers to fight for this 
country has the same rights and same opportunities. As I have 
discussed with many of you in our meetings, I am fully 
committed to implementing the repeal of Don't Ask, Don't Tell, 
and doing everything possible under current law to provide 
equal benefits to the families of all our servicemembers and 
their families.
    I will work with the Service Chiefs as we officially open 
combat positions to women, a decision I strongly support. I 
will continue the important work that Leon Panetta has done to 
combat sexual assault in the military. Maintaining the health 
and well-being of those who serve is critical to maintaining a 
strong and capable military, because an institution's people 
must always come first.
    As we look ahead to the coming years, we have an 
extraordinary opportunity now at this moment to define what is 
next for America's military and our country. It is incumbent 
upon all of us to make decisions that will ensure our Nation is 
prepared to confront any threat we may face in the future, 
protect our citizens, and remain the greatest force for good in 
the world.
    If confirmed as Secretary of Defense, it will be my great 
honor, working with the President, this committee, Congress, 
and our military, to ensure our policies are worthy of the 
service and sacrifice of America's men and women.
    Thank you, Mr. Chairman. I look forward to your questions.
    Chairman Levin. Thank you very much, Senator Hagel. Here is 
what the plan is now for the hearing. We will have a first 
round of 8 minutes each. We have a vote that is scheduled for 
12:15 p.m. We are going to work through that vote, and we are 
also going to work through lunch, which means that we would ask 
you to vote some time during that 12:15 p.m. vote and come back 
for those of you who have not had your turn yet.
    There are five votes at 2:15 p.m. I hope that we can 
complete our first round by 2 p.m. or 2:15 p.m. so that we 
could then have a late lunch at 2:15 p.m. during those five 
votes. We would then come back perhaps an hour later. We would 
ask those who have not had a turn, if that is the case, or 
during our second round, that to begin our second round that 
you on the final vote, vote early and then come back so we can 
start as quickly as possible around 3:15 p.m. or 3:30 p.m., I 
would assume, to either complete the first round if it has not 
been completed, or to begin our second round.
    Because of the time crunch, we have standard questions 
which we ask of all nominees. I am going to ask those at a 
later time during this hearing, but we will ask them. Again, I 
think that we hope to finish today. We will leave the record 
open for questions. But our goal would be to finish today no 
matter how long it takes today, then to have the record open 
for questions.
    Let us now begin our first round of 8 minutes.
    Senator Hagel, you have made reference to the looming 
sequester. We received a letter signed by the Joint Chiefs of 
Staff relative to sequester which says that we are on the brink 
of creating a hollow force due to an unprecedented convergence 
of budget conditions and legislation. They have talked about 
the readiness crisis which would result: grounding aircraft, 
returning ships to port, stop driving combat vehicles, 
training, and so forth.
    You have spoken very briefly about your agreeing in general 
with the impact. Would you expand on the impact of that 
sequester from your perspective?
    Senator Hagel. Mr. Chairman, I think the Service Chiefs 
have laid it out rather directly, plainly, as Secretary Panetta 
has. As recently as 2 or 3 days ago, the Deputy Secretary of 
Defense, Ash Carter, in an interview went into some detail.
    The fact is, the bottom line if sequester would occur, it 
is not just a reduction in a significant amount of dollars that 
would occur, but it would be a convergence of taking the 
flexibility, the projection, the management, the future, away 
from those who are responsible for managing our budget. 
Furloughing civilian employees would have to occur. You listed 
an inventory of consequences; of cutting back on flying time, 
training, steaming. These are real consequences that would 
occur.
    I know the Pentagon, the Chiefs, those who have 
responsibility for managing every department of this 3 million 
person operation, security institution, are preparing for the 
worst. But make no mistake, this is not an exaggeration. When 
managers are not given the flexibility, and the opportunity, 
and the tools to manage with complete uncertainty as to what is 
ahead, that is disaster.
    Chairman Levin. Thank you. On the question of Iran and the 
use of force, the President has said that Iran's leaders should 
understand that President Obama does not have a policy of 
containment. He has a policy to prevent Iran from obtaining a 
nuclear weapon, that he has made clear that he will not 
hesitate, in his words, to use force when it is necessary to 
defend the United States and its interests. Do you agree with 
President Obama's position that, ``all options should be on the 
table,'' to prevent Iran from obtaining a nuclear weapon?
    Senator Hagel. I do. I have, and I strongly agree with him.
    Chairman Levin. On Iranian sanctions, President Obama has 
said that the sanctions which have been put in place are 
crippling the economy of Iran. I happen to agree. Their 
currency has dropped 80 percent. Oil production has plunged. 
Their economy is in a shambles. Do you share the President's 
views on the importance and effectiveness of sanctions against 
Iran? If so, how do you reconcile your position with some of 
your past statements that suggest that the national security of 
the United States is not served by isolating Iran?
    Senator Hagel. First, I have always agreed with 
multilateral sanctions because I think they have an effect. I 
think this President, in particular, has probably done more 
than any president to effectively employ those kinds of 
international sanctions starting with a United Nations (U.N.) 
Security Council agreement and U.N. mandates. I agree with what 
the President is doing. I have said publicly, incidentally long 
before the President ever asked me to consider this job, that 
additional sanctions might be required.
    As to my record on votes in the Senate regarding unilateral 
sanctions, I have differed on some of those. I have voted for 
some as well. It was always on a case-by-case basis. When I 
voted against some of those unilateral sanctions on Iran, it 
was a different time. For example, I believe one was in 2001. 
We were at a different place with Iran during that time. Matter 
of fact, I recall the Bush administration did not want a 
renewal of the 5-year renewal of the Iran-Libya Sanctions Act 
(ILSA) during that time because they weren't sure of the 
effectiveness of sanctions.
    That was not the only reason I voted against it. It was 
because I thought that there might be other ways to employ our 
vast ability to harness power and allies. It was never a 
question of did I disagree with the objective. The objective 
was, I think, very clear to both of us.
    I recall, for example, in 2008, Secretary of State 
Condoleeza Rice sending a letter to the Chairman of the Finance 
Committee, Senator Max Baucus, requesting that a sanctions 
resolution unilateral in the Finance Committee not come out of 
the Finance Committee because the Bush administration at the 
time was working with the Russians specifically, but with the 
Security Council of the United Nations to try to get 
international sanctions, which I think that effort, by the way, 
in 2008, led to the 2010 international sanctions.
    Chairman Levin. Can you give us your view on the size of 
the U.S. force which might be necessary or would be necessary 
after 2014, the so-called residual force, if you have an 
opinion on the size? You indicated in your opening statement 
two missions for that residual force.
    Can you also give us your opinion about the size of the 
Afghanistan National Security Force after 2014, and whether you 
agree with me, and Senator Graham on this committee, and others 
that we ought to reconsider the position that the Afghanistan 
National Security Force should be reduced by a third starting 
in 2014 to about 230,000 from what its current goal is, which 
is about 350,000.
    Senator Hagel. As you all know, General Allen has presented 
his options to the President for the President's consideration. 
As far as I know, as of this morning, the President had not 
made a decision on what a residual force, numbers wise, would 
look like. I have not been included in those discussions, so I 
do not know, other than knowing that he has a range of options, 
as you do.
    But I would say that from what the President has told me, 
what Secretary Panetta has told me, that decision will be made 
to assure resourcing the mission and the capability of that 
mission.
    As to what kind of a force structure should eventually be 
in place by the Afghans, I do not know enough about the 
specifics to give you a good answer, other than to say that I 
think that has to be a decision that is made certainly with the 
President of Afghanistan, what we can do to continue to 
support, train, and protect our interests within the scope of 
our ability to do that. Obviously the immunity for our troops 
is an issue, which was an issue in Iraq. All those 
considerations will be important and will be made. If I am 
confirmed and in a position to give the President on that, I 
will with consultation of our commanders on the ground and our 
Service Chiefs giving the best options that we can provide.
    Chairman Levin. Will you review that question of the size 
of the Afghanistan force with an open mind if you are 
confirmed?
    Senator Hagel. I will because I think we have to.
    Chairman Levin. Thank you. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Hagel, my first question is not to be responded as 
to explaining the position. I want to state the position or 
restate the position on five things that I mentioned in my 
opening statement, and merely to ask you if these are accurate 
reflections of things that happened in the past.
    The first one is in 2007, you voted against the designating 
of Iran's Islamic Revolutionary Guard Corp as a terrorist 
organization. The second thing in 2006, you were 1 of 12 
Senators who refused to petition the European Union (EU) to 
identify Hezbollah as a terrorist group. Third, in November 
2003, you failed to vote on a Syria accountability act 
authorizing sanctions on Syria for its support of terrorism and 
occupation of Lebanon. Fourth, in 2001, you were one of only 
two Senators that year to vote against renewal of the Iran-
Libya Sanctions Act. Lastly, in 2001, you were one of four 
Senators who refused to sign the letter supporting Israel. Are 
those accurate?
    Senator Hagel. Let's start with the----
    Senator Inhofe. No, I just want to know if these are votes 
that took place. Do you agree that those votes took place?
    Senator Hagel. I want to ask about the letter that you just 
noted in your fifth point, what was the date in the letter?
    Senator Inhofe. The date?
    Senator Hagel. You said I refused to sign a letter.
    Senator Inhofe. It was October 2001.
    Senator Hagel. A letter to----
    Senator Inhofe. Okay, skip that one. Are the other ones 
true? [Laughter.]
    Senator Hagel. It is very important, Senator, that we----
    Senator Inhofe. It is very important because I was holding 
the letter at the time that we were gathering signatures.
    Senator Hagel. I see. On the 2008 question regarding 
designating the Revolutionary Guard as a terrorist 
organization, I did vote against it.
    Senator Inhofe. I am sorry, and I do not want to be rude. 
You and I are very good friends, but I know that my time is 
going to expire. Others are going to ask you why you did this. 
I was asking for the accuracy, and you do not want to answer 
that, that is fine.
    Senator Hagel. No, I just said I did vote against it, and I 
was going to explain why I voted against it.
    Senator Inhofe. I know, and they will be asking you for 
your explanation. I want to get to three other things, and that 
is why it is critical that we keep moving along here.
    One of the criticisms I have had of this administration is 
the lack of priority and funding for the military. While they 
have increased the deficit by $5.3 trillion in 4 years, the 
only major part of the budget that has decreased has been the 
military.
    Now, that is something that is pretty well known. A lot of 
people do not like that idea. The thing that bothers me just as 
much is putting another agenda under the military budget. For 
example, you have heard Senator McCain, and me, and others talk 
about the fact that the Navy paid for 450,000 gallons of fuel, 
some $26 a gallon that you can get on the market for $3. The 
Air Force, the same thing, except that it is $59 a gallon.
    The question I would have of you is just a commitment that 
if you are confirmed, will you confine the dollars that we are 
going to spend in the defense budget for defense purposes, for 
warfighting purposes?
    Senator Hagel. Of course I will because that is the intent 
of our budget and DOD.
    Senator Inhofe. Good. I appreciate that very much. There 
was an article the other day in the Washington Post by Jennifer 
Rubin called ``Our Dimwitted State Department''. It was kind of 
an interesting article. There are four questions that I am 
going to ask that you respond for the record. For people who do 
not know what that is, that means later on in writing.
    The questions that I liked that she asked were, did the 
sale of the F-16s encourage Mohamed Morsi to crack down on his 
people? Number two, had we known he would crack, would we still 
have sent the weaponry? Number three, how will we respond to 
Morsi's anti-democratic moves and the rise in violence against 
Christians in Egypt, or, as will likely be the case, a failure 
to live up to Egypt's security obligations regarding Gaza? 
Four, have we miscalculated the Muslim Brotherhood? That would 
be for the record.
    [The information referred to follows:]

    Question. Did the sale of the F-16s encourage Morsi to crack down 
on his people?
    Answer. I do not believe that there is a correlation between the 
sale of F-16s and the recent violence in Egypt. The F-16 aircraft has 
been a key component of the U.S. defense relationship with the Egyptian 
Armed Forces (EAF) for the last 30 years. The EAF have been a reliable 
partner during Egypt's transition, and provided security to reinforce 
Egyptian Ministry of Interior forces during elections and when called 
upon by President Morsi during the recent protests in the Suez Canal 
governorates. I believe it is in U.S. interests to maintain our defense 
relationship with Egypt. Working together to maintain the U.S.-Egypt 
defense relationship is also in the interest of Israel. It is critical 
that the U.S. Government continues to assist with the 
professionalization and the building of EAF capabilities to enable 
border security, participate in regional missions, and continue Egypt's 
role as a pillar of regional stability.
    Question. Had we known he would crack down, would we still have 
sent the weaponry?
    Answer. I cannot speak for the administration, but as I stated, I 
do not believe that there is a direct linkage between the sale of F-16s 
and the recent unrest in Egypt. I join U.S. and foreign leaders in 
condemning the recent violence. It is clear that a large number of 
Egyptian citizens are frustrated with the direction and pace of 
political and economic reform. It is critical that all stakeholders, 
government and opposition, work to address their frustrations and 
concerns peacefully and through dialogue.
    Question. How will we respond to Morsi's anti-democratic moves and 
the rise in violence against Christians in Egypt, or as will likely be 
the case, a failure to live up to Egypt's security obligations 
regarding Gaza?
    Answer. If confirmed, I will take every opportunity to call for a 
transparent, inclusive political process grounded in universal rights, 
the rule of law, and respect for the rights of women and religious 
minorities. The United States maintains the ability to halt assistance 
to Egypt if it is determined that there are major reversals in Egypt's 
democratic transition, a severe degradation in the rule of law, or 
changes in Egypt's foreign or military policy that directly threaten 
U.S. interests, including any changes to the Treaty of Peace with 
Israel.
    I will also be clear with Egyptian leaders that Sinai security 
remains a serious concern, which poses risk to Egypt's internal 
stability as well as the security of Egypt's neighbor Israel. Restoring 
Sinai security requires consistent action against violent groups acting 
in the Sinai and weapons smuggling into Gaza. If confirmed, I will look 
for opportunities to provide U.S. security assistance through training 
and border security equipment to assist Egypt in addressing this shared 
security objective, as well as consistently engage senior Egyptian 
leaders on Sinai security.
    Question. Have we miscalculated the Muslim Brotherhood?
    Answer. No. We are clear-eyed about the Egyptian leadership; the 
fact is that the Freedom and Justice Party--the political arm of the 
Egyptian Muslim Brotherhood--won a majority of votes in Egypt's 
presidential elections. President Morsi has publicly committed to 
upholding Egypt's international obligations, including the Peace Treaty 
with Israel. We need to hold him to these commitments, as he attempts 
to lead Egypt's political transition and democratic consolidation, 
address Egypt's rapidly deteriorating economy, and develop sustainable 
civil-military relations. President Morsi, as the democratically 
elected leader of Egypt, has a special responsibility to build national 
consensus and strengthen Egypt's democracy. In my view, U.S. support 
through economic and security assistance, as well as consistent 
engagement, is critical so that Egypt will continue to serve as a 
pillar of regional stability and peace.
    Question. Do you support a third site of ground-based interceptor? 
It would be on the east coast somewhere.
    Answer. If confirmed, I will work to ensure that the analysis 
Congress requested in section 221 of the National Defense Authorization 
Act for Fiscal Year 2013 to evaluate additional missile defense 
locations in the United States, including on the east coast, will be 
delivered on a timely basis, and that Congress remains informed about 
the Department's analysis about how to best protect the U.S. Homeland.

    Senator Inhofe. In the area of the Global Zero policy, you 
and I talked about that in my office. Others have talked about 
it. We are very much concerned.
    When I heard Senator Warner and others talk about what used 
to be the case, the problem, in terms of nuclear capability, we 
used to be talking about Russia and the United States. It is 
not true anymore. Our intelligence has told us since 2007 that 
Iran will have that nuclear capability and a delivery system by 
2015, so it is other countries that are involved in that.
    The question I would ask you, in your book you wrote that, 
``We must once again convince the world that America has a 
clear intention of fulfilling the nuclear disarmament 
commitments that we have made.'' Then a bit more recently you 
said, ``I believe that providing necessary resources for 
nuclear modernization of the triads should be a national 
priority.'' Do you stand by your last statement?
    Senator Hagel. My last statement was----
    Senator Inhofe. Your last statement is saying that, ``I 
believe that providing the necessary resources for nuclear 
modernization of the triads should be a national priority.''
    Senator Hagel. Absolutely it should be, and I agree with 
that. That is what the policy of this administration is.
    Senator Inhofe. I am merely bringing out the inconsistency 
because when you were involved with supporting the Global Zero 
or whatever the organization was, their declaration is, ``We, 
the undersigned believe that to protect our children, our 
grandchildren, our civilization from the threat of nuclear 
catastrophe, we must eliminate all nuclear weapons globally. 
We, therefore, commit to working for a legally binding 
verifiable agreement, including all nations, to eliminate 
nuclear weapons by a date certain.''
    Senator Hagel. The position of Global Zero, my position, 
some of the individuals--national security leaders, as Senator 
Nunn talked about, including himself, has never been unilateral 
disarmament, ever. Never. We have over the years, which I have 
supported, the United States has led the efforts to reducing 
nuclear warheads. There was no more significant voice for that 
than Ronald Reagan when he laid before Secretary General 
Gorbachev in 1986 a rather bold plan. In fact, I believe, 
paraphrasing President Reagan, we must eliminate nuclear 
warheads from the face of the planet. I believe he said 
something to that effect.
    Global Zero has been very clear on this. Their effort is in 
line with every major national leader in the world, including 
President Obama, to continue to try to make an effort to reduce 
our nuclear warheads. But in a dangerous world, nuclear 
arsenals and our containment policy, which I mentioned in my 
statement, has been critically important. We are not going to 
unilaterally disarm. Verifiable. It has to be bilateral. It has 
to be negotiated, as all our treaties have been.
    Senator Inhofe. Thank you, Senator Hagel, but the reason I 
mentioned the mission statement is that is the group that you 
belong to. We can talk about that later. You may want to expand 
on that for the record.
    My time has expired, but I have one last question I would 
like to ask, and that is, given that Iran--``The people''--and 
I am quoting right now--``from Iran, people of the Middle East, 
the Muslim region, and North Africa, people of these regions 
hate America from the bottom of their heart.'' It further said, 
``Israel is a cancerous tumor in the heart of the Islamist 
world.'' It further said, ``Iran's warriors are ready and 
willing to wipe Israel off the map.''
    The question I would like to ask you, and you can answer 
for the record if you would like, is, why do you think that the 
Iranian foreign ministry so strongly supports your nomination 
to be the Secretary of Defense?
    Senator Hagel. I have a difficult enough time with American 
politics. Senator, I have no idea. But thank you, and I will be 
glad to respond further for the record.
    [The information referred to follows:]

    Question. The question I would like to ask you, and you can answer 
for the record if you would like, is, why do you think that the Iranian 
foreign ministry so strongly supports your nomination to be the 
Secretary of Defense?
    Answer. While I cannot speak to the motivations of the Iranian 
Foreign Ministry spokesperson behind making those statements, there 
should be no doubt that I fully support and--if confirmed--will 
faithfully execute the President's multi-vector strategy towards Iran. 
This strategy has included tough-minded diplomacy, crippling sanctions, 
and serious contingency planning with the objective of preventing Iran 
from acquiring a nuclear weapon.

    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    First, I would ask unanimous consent that several letters 
of support, including one from 13 former Secretaries of 
Defense, Secretaries of State, and National Security advisors, 
strongly endorsing Senator Hagel's nomination, be placed in the 
record.
    Chairman Levin. It will be placed in the record.
    [The information referred to follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Reed. Mr. Chairman, I think the President chose 
wisely. There are very few people in this country with the 
experience, as a combat infantryman, decorated and wounded, as 
a business leader, as the second leader of the Veterans 
Administration, as a U.S. Senator, as someone who every day 
understands that the decisions we make will be carried out by 
young Americans, actually looked in the face of young 
Americans, who has seen them suffer and die for this country. I 
think that quality is, if not unique, extraordinarily part of 
the nominee before us. Again, I think the President made a wise 
choice.
    I think Senator Inhofe's discussions of the Global Zero 
Report is an opportunity for a quote, and let me quote. ``There 
is one way safely and legitimately to reduce the cost of 
national security, and that is to reduce the need for it. This 
is what we are trying to do in negotiations with the Soviet 
Union. We are not just assessing limits on a further increase 
of nuclear weapons. We seek instead to reduce the number. We 
seek the total elimination one day of nuclear weapons from the 
face of the Earth.'' President Ronald Reagan in his second 
inaugural address.
    The notion of Global Zero is not something unique. I would 
also point out that as signatories to the nuclear disarmament 
treaty, the Nonproliferation Treaty, Article 6 undertakes to 
commit at least to a treaty ultimately on general and complete 
disarmament under strict and effective control.
    This is an aspiration that the United States has embraced 
for a very long time under presidents of both parties. I think, 
as Senator Hagel pointed out, this is not unilateral 
disarmament. This is a long process of making sure we have the 
nuclear weapons in place to deal with appropriate challenges, 
some of them very different than the Cold War, but the 
aspiration is important. It has been a bipartisan and constant 
one for decades. Is that a rough summary of what you might 
agree to, Senator?
    Senator Hagel. Yes, it is, Senator. Thank you.
    Senator Reed. The other issue is that there were several 
specific points raised with your record, and let me give you 
the opportunity to respond, if you will, to the questions that 
Senator Inhofe posed with respect to votes. If you have the 
list before you or----
    Senator Hagel. The what? I'm sorry?
    Senator Reed. Senator Inhofe posed several issues about a 
2007 vote, a 2006 resolution with Hezbollah, 2003 Syrian 
sanctions, et cetera. You were prepared to comment. I think it 
is appropriate that you have an opportunity to comment. If you 
want to do so now, I would invite you to do so.
    Senator Hagel. I would be glad to further comment for the 
record because I have none of those specific quotes in front of 
me, and which I will, Senator, listing every vote I took.
    I would say, though, included in those votes, which I do 
recall some of them, was a vote in 1998, a vote in 2000, a vote 
in 2006, specifically against Iran, sanctioning companies, 
unilateral sanctions, that in any way assisted in Iran's 
building their capability of nuclear weapons or rocket or 
missiles. I voted for those.
    I recall signing a letter, a Warner-Levin letter in 2002 to 
the President of the United States regarding anti-Semitism in 
Russia. I wrote a letter to President Clinton specifically in 
1999 recommending to President Clinton a number of steps that 
he take with President Yeltsin regarding anti-Semitism in 
Russia. I remember specifically there were two unanimous 
consent resolutions in 2006 against Hezbollah, against Hamas, 
against Syria, and Iran that we had unanimous consent, I 
supported on the floor of the Senate.
    So there is a more complete record, Senator, than just one, 
or two, or three, or four, and those are some of them that I 
recall. As I noted in one of the responses back to Senator 
Inhofe, I did not take any action on any vote, as I suspect 
every colleague has the same way to approach votes, on this 
specific issue, on Hezbollah, Hamas, which I am on the record 
many times designating and saying that Hezbollah and Hamas are 
terrorist organizations. I am on the record many times in 
speeches, and on the floor of the Senate, and in the book I 
wrote in 2008 saying that Iran is a state sponsor of terrorism. 
That is not new. That is in my record.
    But the way I approached every vote I ever took in the 
Senate was based on what I thought could be most effective, 
what was the situation at the time, how could we do this 
smarter and better. I have always believed that the President 
of the United States is the elected leader of America. He has 
within his responsibilities, and I believe it is clearly 
articulated in Article 2, to conduct foreign policy. I always 
thought the best way to deal with foreign leaders was let the 
President do that directly, for us to communicate with the 
President.
    I do not think there was a letter that I can recall I 
signed to a President on any of these issues that I agreed with 
it that I did not sign. So it was never a matter of differing 
objectives here. It was a matter of how best we could do it.
    I mentioned in 2008, the Secretary of State did not want 
one of those unilateral sanctions to go forward during the Bush 
administration, wrote a letter, 2001, which is one of the 
issues that Senator Inhofe brought up. The Bush administration 
was opposed to a 5-year renewal of ILSA.
    Now, I am not saying that is right or wrong, but every one 
of the decisions I made, every vote I cast, was based on at the 
time what I thought made the most sense.
    [The information referred to follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Reed. Senator, you have clearly stated that you are 
supportive of the President's efforts to support the State of 
Israel. You have indicated specifically the example of Iron 
Dome. I recall a statement recently by Defense Minister Barak 
that he has seldom seen or never has seen the same level of 
military support to the State of Israel that he has seen in the 
last several years.
    You are, I presume and I hope, fully prepared to carry out 
that same effort, that same level of support, because of the 
vital interests that we share with the State of Israel.
    Senator Hagel. I am, and I have a record on that. In my 
book in 2008, interviews, speeches, I have always said I am a 
supporter of Israel. In some cases, I have said I am a strong 
supporter of Israel. In some cases I have even written, and I 
think it is in my book, that we have a special relationship 
with Israel. We always have had.
    I have never voted against Israel ever in the 12 years I 
was in the Senate whether it was military authorizations, 
additional supplemental appropriations. The record is very 
clear on that.
    I might add, as long as we are on this subject, that--and 
Senator Nelson may have a clearer view of this since he was 
just in Jerusalem, there have been a couple of recent 
statements made by the current Israeli Ambassador to the United 
States, the former Israeli Ambassador to the United States, now 
the Deputy Foreign Minister of Israel, that were fairly 
positive about me.
    I think all the Israeli leaders I have dealt with over the 
years and met, I have been to Israel many times. The first two 
times I was in Israel was when I was the head of the United 
Services Organizations (USO). I kept the Haifa USO open. We did 
not close it. There was a lot of pressure when I took over the 
World USO to close USOs around the world, and we did. There was 
a lot of pressure to close the Haifa USO. I am the one that 
made the decision not to do that.
    The former Chief of Naval Operations of Israel, Admiral Zev 
Almad, who has recently been interviewed about me, has strongly 
supported me and said specifically that I was a strong friend 
of Israel. Now the USO is closed, but the current then director 
of the USO, a lady by the name of Gila Garrison, who lives in 
Haifa, said I was a strong supporter and friend of Israel.
    I think my record is pretty clear on my support of Israel, 
and I would, of course, continue to support the President's 
policies. I think he has been as strong a supporter of Israel 
as maybe any President since 1948 when Harry Truman helped give 
birth to Israel. This President has been there. As he said, I 
have Israel's back--$3.1 billion in assistance, almost $300 
additional million out of the Defense Department for Iron Dome, 
what we are doing with David Sling Arrow. I am a strong 
supporter of all those programs and will continue to support 
them.
    Senator Reed. Thank you.
    Chairman Levin. Thank you. Before I call on Senator McCain, 
there is a quorum that is now present, and I now ask the 
committee to consider a list of 952 pending military 
nominations. They have all been before the committee the 
required length of time.
    Is there a motion to favorably report those nominations?
    Unidentified Speaker. I so move.
    Chairman Levin. Is there a second?
    Unidentified Speaker. Second.
    Chairman Levin. All in favor, say aye? [A chorus of ayes.]
    Opposed, any? [No response.]
    The motion carries. Thank you all very much.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
  which are Proposed for the Committee's Consideration on January 31, 
                                 2013.
    1. MG William H. Etter, ANG to be lieutenant general and Commander, 
First Air Force (Air Force North) and Commander, Continental U.S. North 
American Aerospace Defense Command Region (Reference No. 53)
    2. MG Kenneth E. Tovo, USA to be lieutenant general and Commander, 
Combined Security Transition Command-Afghanistan/Commander, North 
Atlantic Treaty Organization Training Mission-Afghanistan (Reference 
No. 59)
    3. Col. Barbara R. Holcomb, USA to be brigadier general (Reference 
No. 62).
    4. Col. Patrick D. Sargent, USA to be brigadier general (Reference 
No. 63).
    5. In the Army there are two appointments to the grade of major 
general (list begins with Brian C. Lein) (Reference No. 64).
    6. In the Air Force there is one appointment to the grade of major 
(Kory D. Bingham) (Reference No. 70).
    7. In the Air Force Reserve there are three appointments to the 
grade of colonel (list begins with Michael A. Cooper) (Reference No. 
71).
    8. In the Air Force Reserve there are four appointments to the 
grade of colonel (list begins with Victor Douglas Brown) (Reference No. 
72).
    9. In the Air Force Reserve there are four appointments to the 
grade of colonel (list begins with Walter S. Adams) (Reference No. 73).
    10. In the Air Force Reserve there are six appointments to the 
grade of colonel (list begins with John J. Bartrum) (Reference No. 74).
    11. In the Air Force Reserve there are eight appointments to the 
grade of colonel (list begins with Kimberly L. Barber) (Reference No. 
75).
    12. In the Air Force Reserve there are 11 appointments to the grade 
of colonel (list begins with Dina L. Bernstein) (Reference No. 76).
    13. In the Air Force Reserve there are 12 appointments to the grade 
of colonel (list begins with Timothy Lee Brininger) (Reference No. 77).
    14. In the Air Force Reserve there are 198 appointments to the 
grade of colonel (list begins with Francis Xavier Altieri) (Reference 
No. 78).
    15. In the Army there is one appointment to the grade of lieutenant 
colonel (Jonathan A. Foskey) (Reference No. 79).
    16. In the Army Reserve there is one appointment to the grade of 
colonel (Marion J. Parks) (Reference No. 80).
    17. In the Army Reserve there is one appointment to the grade of 
colonel (Karen A. Pike) (Reference No. 81).
    18. In the Army there are two appointments to the grade of major 
(list begins with Derek S. Reynolds) (Reference No. 82).
    19. In the Army there are two appointments to the grade of major 
(list begins with Edward A. Figueroa) (Reference No. 83).
    20. In the Army Reserve there are two appointments to the grade of 
colonel (list begins with Jack C. Mason) (Reference No. 84).
    21. In the Army Reserve there are 79 appointments to the grade of 
colonel (list begins with Ruth E. Aponte) (Reference No. 85).
    22. In the Army there are 88 appointments to the grade of major 
(list begins with Leslie E. Akins) (Reference No. 86).
    23. In the Army Reserve there are 217 appointments to the grade of 
colonel (list begins with Timothy G. Abrell) (Reference No. 87).
    24. In the Army Reserve there are 225 appointments to the grade of 
colonel (list begins with Rafael E. Abreu) (Reference No. 88).
    25. In the Marine Corps there is one appointment to the grade of 
major (Jackie W. Morgan, Jr.) (Reference No. 91).
    26. In the Marine Corps there is one appointment to the grade of 
lieutenant colonel (Dana R. Fike) (Reference No. 92).
    27. In the Marine Corps there is one appointment to the grade of 
lieutenant colonel (Samuel W. Spencer III) (Reference No. 93).
    28. In the Marine Corps there is one appointment to the grade of 
lieutenant colonel (Larry Miyamoto) (Reference No. 94).
    29. In the Marine Corps there are two appointments to the grade of 
lieutenant colonel (list begins with George L. Roberts) (Reference No. 
97).
    30. In the Marine Corps there are two appointments to the grade of 
lieutenant colonel (list begins with Richard D. Kohler) (Reference No. 
98).
    31. In the Marine Corps there are two appointments to the grade of 
major (list begins with Eric T. Cline) (Reference No. 100).
    32. In the Marine Corps there are two appointments to the grade of 
lieutenant colonel (list begins with Jose L. Sada) (Reference No. 101).
    33. In the Marine Corps there are three appointments to the grade 
of major (list begins with Frederick L. Hunt) (Reference No. 102).
    34. In the Marine Corps there are three appointments to the grade 
of major (list begins with Todd E. Lotspeich) (Reference No. 103).
    35. In the Marine Corps there are three appointments to the grade 
of lieutenant colonel (list begins with Jason B. Davis) (Reference No. 
104).
    36. In the Marine Corps there are three appointments to the grade 
of lieutenant colonel (list begins with Travis M. Fulton) (Reference 
No. 105).
    37. In the Marine Corps there are four appointments to the grade of 
lieutenant colonel (list begins with Bryan Delgado) (Reference No. 
106).
    38. In the Marine Corps there are two appointments to the grade of 
major (list begins with David B. Blann) (Reference No. 107).
    39. In the Marine Corps there are five appointments to the grade of 
major (list begins with Michael Gasperini) (Reference No. 108).
    40. In the Marine Corps there are six appointments to the grade of 
major (list begins with Stephen R. Byrnes) (Reference No. 109).
    41. In the Marine Corps there are seven appointments to the grade 
of major (list begins with Peter K. Basabe, Jr.) (Reference No. 110).
    42. In the Navy there is one appointment to the grade of commander 
(Harry E. Hayes) (Reference No. 115).
    43. In the Navy there is one appointment to the grade of lieutenant 
commander (Shemeya L. Grant) (Reference No. 116).
    44. In the Navy there are two appointments to the grade of 
commander and below (list begins with Christopher J. Kaine) (Reference 
No. 117).
    45. In the Navy there are 29 appointments to the grade of 
lieutenant commander (list begins with Jeanine F. Benjamin) (Reference 
No. 118).
    Total: 952.

    Chairman Levin. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I am pleased to 
see an old friend here before the committee, and especially 
pleased to see Senator Warner and Senator Nunn, two of the 
great members of this committee, who have contributed so much 
to our Nation's defense.
    Senator Hagel, members of this committee will raise 
questions reflecting concerns with your policy positions. They 
are not reasonable people disagreeing. They have fundamental 
disagreements. Our concerns pertain to the quality of your 
professional judgment and your world view on critical areas of 
national security, including security in the Middle East.
    With that in mind, let me begin with your opposition to the 
surge in Iraq. In 2006, Republicans lost the election, and we 
began the surge, and you wrote a piece in the Washington Post 
called ``Leaving Iraq Honorably''. In 2007, you said it is not 
in the national interests to deepen its military involvement. 
In January 2007, in a rather bizarre exchange with Secretary 
Rice in the Senate Foreign Relations Committee after some 
nonsense about Syria and crossing the border into Iran and 
Syria because of Syria, and a reference to Cambodia in 1970, 
you said, ``When you set in motion the kind of policy the 
President is talking about here, it's very, very dangerous. 
Matter of fact, I have to say, Madam Secretary, I think the 
speech given last night by this President represents the most 
dangerous foreign policy blunder in this country since Vietnam. 
If it is carried out, I will resist it.'' Then of course you 
continued on and on for months afterwards talking about what a 
disaster the surge would be, even to the point where it was 
clear the surge was succeeding.
    In March 2008, you said, ``Here the term quagmire could 
apply. Some reject that term, but if that is not a quagmire, 
then what is?'' Even as late as August 29, 2011, in an 
interview with the Financial Times, you said, ``I disagreed 
with President Obama, his decision to surge in Afghanistan as I 
did with President Bush on the surge in Iraq.''
    Do you stand by those comments, Senator Hagel?
    Senator Hagel. Senator, I stand by them because I made 
them.
    Senator McCain. Were you right? Were you correct in your 
assessment?
    Senator Hagel. I would defer to the judgment of history to 
support that out.
    Senator McCain. The committee deserves your judgment as to 
whether you were right or wrong about the surge.
    Senator Hagel. I will explain why I made those comments.
    Senator McCain. I want to know if you were right or wrong. 
That is a direct question. I expect a direct answer.
    Senator Hagel. The surge assisted in the objective. But if 
we review the record a little bit----
    Senator McCain. Will you please answer the question? Were 
you correct or incorrect when you said that ``The surge would 
be the most dangerous foreign policy blunder in this country 
since Vietnam.'' Where you correct or incorrect, yes or no?
    Senator Hagel. My reference to the surge being the most 
dangerous----
    Senator McCain. Are you going to answer the question, 
Senator Hagel? The question is, were you right or wrong? That 
is a pretty straightforward question. I would like an answer 
whether you were right or wrong, and then you are free to 
elaborate.
    Senator Hagel. I am not going to give you a yes or no 
answer on a lot of things today.
    Senator McCain. Let the record show that you refuse to 
answer that question. Now, please go ahead.
    Senator Hagel. If you would like me to explain why----
    Senator McCain. I actually would like an answer, yes or no.
    Senator Hagel. I am not going to give you a yes or no. I 
think it is far more complicated that, as I have already said. 
My answer is, I will defer that judgment to history.
    As to the comment I made about the most dangerous foreign 
policy decision since Vietnam was about not just the surge, but 
the overall war of choice going into Iraq. That particular 
decision that was made on the surge, but more to the point, our 
war in Iraq, I think was the most fundamental bad, dangerous 
decision since Vietnam.
    Aside from the cost that occurred in this country through 
blood and treasure, aside what that did to take our focus off 
of Afghanistan, which, in fact, was the original and real focus 
of a national threat to this country, Iraq was not. I always 
tried to frame all the different issues before I made a 
decision on anything.
    Now, just as you said, Senator, we can have differences of 
opinion, but that is essentially why I took the position I did.
    Senator McCain. It is a fundamental difference of opinion, 
Senator Hagel. Senator Graham and I, and Senator Lieberman, 
when there were 59 votes in the U.S. Senate, spent our time 
trying to prevent that 60th. Thank God for Senator Lieberman. I 
think history has already made a judgment about the surge, sir, 
and you are on the wrong side of it. Your refusal to answer 
whether you were right or wrong about it is going to have an 
impact on my judgment as to whether to vote for your 
confirmation or not. I hope you will reconsider the fact that 
you refuse to answer a fundamental question about an issue that 
took the lives of thousands of young Americans.
    Senator Hagel. Senator, there was more to it than 
flooding----
    Senator McCain. I am asking about the surge, Senator Hagel.
    Senator Hagel. I know you are, and I am trying to explain 
my position. The beginning of the surge also factored in what 
General Allen had put into place in Anbar Province, the Sunni 
Awakening. We put over 100,000 young soldiers----
    Senator McCain. Senator Hagel, I am very well aware of the 
history of the surge and the Anbar Awakening, and I also am 
aware that any casual observer will know that the surge was the 
fundamental factor, led by two great leaders, General Petraeus 
and Ambassador----
    Senator Hagel. Well, I do not know if that would have been 
required and cost us over 1,000 American lives and thousands of 
wounded.
    Senator McCain. So you do not know if the surge would have 
been required. Okay.
    Senator Hagel, let me go to Syria now. More than 60,000 
people have been killed in Syria. Do you believe that we should 
be more engaged in Syria?
    Senator Hagel. I know this administration is very engaged 
in working with its partners.
    Senator McCain. So you do not think we should do more?
    Senator Hagel. When you say ``do more,'' do you mean----
    Senator McCain. Do you think we should make sure that the 
Syrians get the weapons they need, and perhaps establish a no 
fly zone? Do you think we do?
    Senator Hagel. I believe that part of our review is looking 
at those options.
    Senator McCain. It has been 22 months, Senator Hagel.
    Senator Hagel. I was not there. I do not know the details. 
I am not there now.
    Senator McCain. I am sure you have read in the newspapers 
that 60,000 people have been killed, and that it is in danger 
of spilling over into neighboring countries. My question, I 
guess, is how many more would have to die before you would 
support arming the resistance and establishing a no fly zone?
    Senator Hagel. I do not think anyone questions the terrible 
tragedy that is occurring there every day. It is a matter of 
how best do we work our way through this so that we can stop it 
to begin with, and then what comes next. I think the 
President----
    Senator McCain. Did you disagree with President Obama on 
his decision for the surge in Afghanistan?
    Senator Hagel. I did not think we should get ourselves 
into--first of all, I had no regional position as far as no 
formal position. But I did not think we were----
    Senator McCain. But you were reported on August 29, 2011 
saying, ``I disagreed with President Obama and his decision to 
surge in Afghanistan.''
    Senator Hagel. That was my personal opinion, yes.
    Senator McCain. Thank you, Mr. Chairman.
    Senator Hagel. Thank you.
    Chairman Levin. Thank you, Senator McCain.
    Senator Nelson.
    Senator Nelson. Since the issue of Iraq has come up here, I 
just want to state for the record and lay the predicate that 
this Senator was one of many that voted for the authorization 
to go into Iraq, and as it turns out, the lessons of history, 
we were given incorrect information as a justification for 
going into Iraq.
    We were told by the Secretary of Defense, by the Secretary 
of State, by the National Security advisor, and the Director of 
the Central Intelligence Agency (CIA) that there were weapons 
of mass destruction in Iraq. So for a lot of the decisions that 
were made at the outset, they were decisions that were informed 
with incorrect information. As the committee is judging Senator 
Hagel on that decision as well as others, I want to tell the 
committee what was this experience of this Senator.
    Now, what I would like to do with my time here is that 
since there are a few of this in this room that served in the 
military during the Vietnam era, and you clearly had that 
experience in combat, Senator Hagel, I would--and by the way, a 
lot of people do not know anything about Vietnam, and do not 
know how difficult it was, as Senator Warner has so eloquently 
stated in his comments, how the Nation was divided.
    But I would like for you, as the committee is getting to 
know you, to know something about your service in Vietnam, and 
your combat experience. Were you wounded, Senator Hagel?
    Senator Hagel. Senator Nelson, thank you. If I may, and if 
I read into your question some latitude in answering, I would 
respond this way. I think my time is better served to maybe 
talk about more of the specific things, like Senator McCain 
asked me about and some others. Maybe weave some of my 
experience as to how it formed my judgment, rather than going 
through a 12-month journal of my time in the jungles when my 
brother, Tom, and I were both wounded twice together.
    When Tom and I served there, 1968 was the worst year we 
had. Those who may not recall that year, we sent over 16,000 
dead Americans home. Now, that is unfathomable in the world 
that we live in today, 16,000 dead Americans. I saw that from 
the bottom.
    I think Chairman Levin, in an accurate and appropriate 
quote about what I said, in his introductory statements about 
what formed me, and it directly goes to Senator McCain's 
question about the surge. Just as I said in my statement, I had 
one fundamental question that I asked myself on every vote I 
took, every decision I made. Was the policy worthy of the men 
and women that we were sending into battle and surely to their 
deaths? In many cases, unfortunately tens of thousands of cases 
that we are living with, these poor families are living with, 
wounded, the results, the consequences.
    I know it is easy here--it is anywhere--if you do not have 
a connection to some of this to see these things a little 
differently. It does not mean I am any better, Senator. It does 
not mean I am any smarter. It does not mean I am any more 
appreciative of the service of our country. That is not it. I 
saw it from the bottom. I saw what happens. I saw the 
consequences and the suffering when we are at war.
    So I did question a surge. It was not an aberration to me 
ever. I always ask the question, is this going to be worth the 
sacrifice, because there will be sacrifice. In the surge case 
in Iraq, we lost almost 1,200 dead Americans during that surge 
and thousands of wounded. Now, was it required? Was it 
necessary? Senator McCain has his opinion on that shared by 
others. I am not sure. I am not that certain that it was 
required. Now it does not mean I am right. It does not mean I 
did not make wrong votes. But that is what guides me.
    You asked me the question about my time in Vietnam and was 
I wounded. I was a very insignificant part of this. We were 
just doing our job, Senator, as every military person knows 
that. Some of this committee has rather distinguished members 
who served, starting with Senator McCain, and the sacrifices he 
has made to this country.
    But it does condition you. I am not shaped, framed, molded, 
consumed by that experience. Of course not. But it is part of 
me. I tried to explain that in my opening statement. We are all 
shaped by those experiences. I hope that experience that I have 
had is for the better. I hope if I have the privilege of 
serving as Secretary of Defense it will put someone in charge 
at the Pentagon--not questioning past Secretaries of Defense; I 
can only speak for myself--who understands the realities of 
consequences of war. It does not mean I am better, but that is 
who I am. I do not walk away from that. I acknowledge that. But 
it does not consume me, Senator.
    I do not see the lens of every world event and whether we 
should use American power through the lens of Vietnam. That is 
part of me. It is part of that lens. I think that is for the 
better. I think we need to be cautious with our power. I think 
we need to be wise with our power.
    We have great power. We have awesome power. No nation in 
the world is even in our league. We have done so much good with 
that power. I do not think there is a nation in the history of 
man who has ever been as judicious and careful with its power 
as we have. I want to make sure we continue to do that, as you 
all do.
    We will have differences, Senator, on policies, but all I 
can do is my best based on my own experiences. As I also said 
in my statement, reaching out, listening, learning, never 
knowing enough, understand circumstances change.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Sessions.
    Senator Sessions. Thank you. Senator Hagel, it is great to 
have you with us and to have this hearing and an opportunity to 
discuss important issues. I admire your service to your 
country, and your combat experience is something we all honor 
and respect.
    I have been for the most part chairman, ranking member, or 
member of the Strategic Forces Subcommittee of this Senate 
Armed Services Committee for the time I have been in the 
Senate. We came into the Senate together. So I have had some 
experience and knowledge about the great debates involving 
nuclear weapons and national security. I believe the Secretary 
of Defense should be the core, the rock-solid person, for 
defense of America. I believe he should project an image of 
solidity and steadfastness that the whole world and American 
people can depend on.
    I am more than a little troubled by the report that you 
participated in--the Global Zero report that calls for the 
total elimination of nuclear weapons, and clearly suggests that 
is an achievable goal in a realistic period of time, although 
certainly not immediately. Your report writers defend you. They 
have issued an article defending you and the report that was 
just issued last year. They protest mightily and say that, 
``Chuck Hagel and Global Zero's views on nuclear weapons are in 
the national security interests and squarely in the 
mainstream.''
    Indeed, your defendants insist you are in the mainstream 
because your position is that of President Obama's, and 
dramatically they assert you are out of the mainstream if you 
believe otherwise.
    So your report explicitly calls for, ``an urgent and 
transformational change in the U.S. nuclear force structure, 
strategy, and posture''. I think it is a rather exceedingly 
dramatic report frankly.
    Now, specifically as to the historic nuclear force triad 
that has been the bedrock of our defense policy for half a 
century, your report calls for bilaterally or unilaterally 
totally eliminating the intercontinental ballistic missile 
(ICBM) triad leg. In fact, the report refers to itself as a 
dyad instead of a triad report. You propose eliminating the 76 
nuclear B-52 bombers entirely, leaving only 18 B-2 bombers, 
reducing nuclear submarines from 14 to 10.
    Further, the committee report that you were one of the five 
members that produced it, you favor eliminating all tactical 
nuclear weapons, de-alerting all weapons, and according to the 
report as I read it, that would mean it would take from 1 to 3 
days to place a weapon on alert. I certainly agree that that 
would be a transformational change in our nuclear force 
structure, strategy, and posture. I think it is a big historic 
thing.
    Now, General Kehler, the present Commander of the U.S. 
Strategic Command (STRATCOM) and Secretary of Air Force Mike 
Donley do not agree with the recommendations in this report, 
people you will supervise. General Kehler told the press on 
August 8, 2012, ``I do not support the former vice chairman,'' 
and that is General Cartwright. ``I do not think that we are in 
a place he suggests now, nor do I see that particular place any 
time soon.'' So you will be supervising him.
    Would you share with us where you are today on that issue? 
Do you support the view of General Kehler, or do you support 
the view of the commission report that you signed?
    Senator Hagel. Thank you, Senator. Let me first correct 
some of your interpretation of what the Global Zero report was, 
and is, and what it actually said.
    First, it did not propose or call for anything. It was, in 
fact--the word specifically used at the front end of that 
report was ``illustrative,'' proposing nothing, but laying out 
different scenarios, and possibilities, and schedules. But here 
is the key part of all this, and by the way, this was 
summarized in a letter to President Obama in 2009. Bilateral, 
never unilateral. Nothing was ever suggested on a unilateral 
basis to take down our arsenal. Negotiated, verifiable. These 
are all terms that were in the report.
    As Senator Nunn said in his opening statement, and I have 
alluded generally to this, the mainstream thinking of most 
Presidents we have had the last 65 years, and I go back to 
Ronald Reagan's comments as Senator Nunn quoted, was reduction 
of nuclear weapons for the obvious reasons. That is why we have 
engaged in treaties to reduce nuclear weapons. Those were not 
unilateral arrangements, those were bilateral arrangements.
    The United States and the Russians have about 90 percent of 
the nuclear in the world today. Now there are others who have 
them. There are nine nuclear powers, dangerous. Obviously the 
so-called loose nukes or non-state actors, terrorist groups 
getting a hold of these are threats.
    Senator Sessions. But, Senator Hagel, I think----
    Senator Hagel. I just want to make sure that is clear.
    Senator Sessions. I know, but it is not clear in your 
report. The report says on page 1, ``These steps could be taken 
with Russia in unison through reciprocal presidential 
directives, negotiated in another round of bilateral arms 
reductions, or in implemented unilateral.'' A little further 
on----
    Senator Hagel. Well, that is not proposing.
    Senator Sessions.--it says it two more times in this report 
that these ideas could be a--less good approach would be to 
adopt this agenda unilaterally. It suggests that it should be 
adopted. That would not be as good, but you would do so. There 
is another reference to that, and it does call for these 
reductions. In your conclusion, you say, ``The United States 
should seek to achieve such reductions in 10 years and plan to 
base its arsenal on a dyad of nuclear delivery vehicles.''
    You go on to say, ``Trident missile submarines--the optimal 
mix would consist of 10 Trident submarines and 18 B-2 bombers, 
the normal conditions it would have for the warhead stockpile 
would be deployed on these carriers. The other half would be 
kept in reserve. All land-based intercontinental missiles armed 
with nuclear payloads would be retired, along with carriers of 
non-strategic nuclear warheads, all of which would be 
eliminated. That is the tactical nuclear weapons, all of which 
would be eliminated from the stockpile. B-52 bombers would be 
completely dismantled or converted to carry only conventional 
weapons.''
    I do not believe that is consistent with the policy of the 
country as a whole. I supported legislation to create a 
bipartisan commission several years ago to help us--Senator 
Levin and others supported that. The House supported it, and it 
passed--to help us determine how much further we can continue 
to draw down our nuclear weapons. It was chaired by William 
Perry, the Secretary of Defense under Carter, James 
Schlesinger, who served in the Carter and Nixon cabinets. It 
had John Glenn on it, Martin Halperin, Lee Hamilton, James 
Woolsey, Keith Paine, and others. They had access to the 
Defense Department secret documents and information, and they 
came out with quite a different view.
    Let me just point out some of the things that they came up 
with. They said maintain the triad. They said maintain tactical 
nuclear weapons. They recommended no change in the alert 
statute, and, in fact, the Defense Department's nuclear posture 
review under President Obama and Secretary Gates, explicitly 
found the alert status should not be altered in their review of 
nuclear weapons. They fundamentally found a need for nuclear 
weapons. That is the point. Your commission basically said that 
it undermines the request for nuclear weapons.
    I will give you a chance to respond. On Global Zero, they 
sort of I think foresaw this argument. Before your report was 
issued, they said this, ``The conditions that might make 
possible the global elimination of nuclear weapons are not 
present today, and their creation would require a fundamental 
transformation of the world political order.''
    That is a very strong statement, and I think it was aimed 
at this idea that is practical and realistic for us to expect 
that the world is going to move to zero nuclear weapons.
    So first, I want to ask you one question that you told me 
in our meeting that I appreciated. President Obama stated when 
we did the New START treaty discussion, vote, and debate, ``I 
intend to modernize or replace the triad of strategy nuclear 
systems, a heavy bomber, and air launch cruise missile, and 
ICBM, and nuclear-powered ballistic missile submarine.''
    He committed to, ``accelerate the design of the Chemistry 
and Metallurgy Research Replacement Nuclear Facility and the 
Uranium Processing Facility''--those are the two buildings 
where our modernizations would take place--``and request full 
funding for those projects''.
    First, let me ask you, would you support that vision and 
commitment the President made?
    Senator Hagel. Absolutely I do, and----
    Senator Sessions. Then you are free to respond to what I 
was saying. But I really do feel that--I am uneasy about this 
vision expressed in that committee report of yours.
    Senator Hagel. Let me just briefly come back to what you 
said, Senator, and I appreciate you giving me a chance to 
respond.
    First, my record has always been very clear, everything I 
have voted on in my career in the Senate and wherever I have 
been. A strong, agile, safe, secure, effective, nuclear arsenal 
for the United States is not debatable. I voted that way. I 
believe that. You know that the home of STRATCOM is now in 
Senator Fischer's State, which used to be the State I 
represented or I used to be in that State as a Senator. It has 
not changed.
    I know a little something about it, not as much as you and 
others on the committee, but I have been to that facility many 
times. I know General Kehler very well, know all the STRATCOM 
commanders very well. You know what the motto of STRATCOM is. 
It is a pretty significant motto. ``Peace is our business.''
    What has kept the peace, as I noted in my opening statement 
as much as anything else in the world since World War II, is 
that nuclear deterrent. This prospective, Secretary of Defense, 
would never do anything or in any way take any action that 
would minimize, or harm, or downgrade that reality. But again, 
I go back to--not to get caught up in this report. This report 
was about illustrative possibilities, what and how could things 
be done. Always bilateral. Always verifiable. Always 
negotiable, just as we have always done in our treaties.
    I will stop there. That is the commitment I make to you. I 
made it to the President. My record is clear on that.
    Chairman Levin. Thank you. I think we have to move on.
    Senator Sessions. Just thank you. I would just say the 
vision stated in your Global Zero report, I believe, is likely 
to create instability rather than confidence and stability, 
create uncertainty in the world among our allies and our 
potential adversaries. I do not believe it would meet the goal 
that you said not to weaken our ability.
    So I am troubled that--I feel--I appreciate your comments 
today, but I am troubled by the language in that report.
    Chairman Levin. Thank you very much, Senator Sessions.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman. In the 6 years 
I have served on this committee, I have served under Senator 
Warner as a ranking Republican member, and Senator McCain as a 
ranking Republican member. I have to tell you that there has 
never been a time that I did not sense that we all agreed that 
our work on behalf of our Nation in terms of protecting our 
country and defending our country, that it was a bipartisan 
effort.
    I believe very strongly that this committee needs to be 
bipartisan. I hope that the new ranking member holds the same 
regard for that as Senator McCain and Senator Warner did, 
because at all times I felt that they were respectful and were 
willing to listen to our disagreements. I am hopeful that will 
continue, and I will be optimistic that it will.
    I am going to ask a series of questions, and then at the 
end of them, if you need more time, just say so.
    Do you believe that all options should be on the table when 
we confront Iran?
    Senator Hagel. Absolutely.
    Senator McCaskill. Do you believe Iran is currently a state 
sponsor of terrorism and provides material support to Hezbollah 
and to Hamas?
    Senator Hagel. Yes, and I am on the record a number of 
times saying that.
    Senator McCaskill. Do you support sanctions against Iran?
    Senator Hagel. Yes.
    Senator McCaskill. Do you believe that the United States 
should unilaterally eliminate its nuclear arsenal?
    Senator Hagel. No.
    Senator McCaskill. Do you agree with four national security 
leaders, including Henry Kissinger, Sam Nunn, William Perry, 
and George Schultz, President Reagan's Secretary of State, when 
they said, ``The four of us have come together in a nonpartisan 
effort, deeply committed to building support for a global 
effort to reduce reliance on nuclear weapons, to prevent their 
spread into potentially dangerous hands, and to ultimately to 
end them as a threat to the world. We remain committed to 
working towards this vision and advancing the steps essential 
to achieve this goal.'' Do you agree with those four bipartisan 
national leaders in the area of national security and foreign 
policy?
    Senator Hagel. Yes.
    Senator McCaskill. I wanted to take a few minutes to talk 
about some of the things we talked about in my office, and some 
people on the committee are going, oh, here she goes on 
contracting, but the auditability of the Defense Department.
    I know you stated in some of the advance policy questions 
that you want to hold people accountable on auditability. I do 
not think most Americans realize that as we face shrinking 
budgets and as we want to secure the preeminence of our 
military, and not hollow out the spending at the Defense 
Department, that auditability is a crucial ingredient to us 
being able to figure out whether all the money that is being 
spent there is being spent like Americans would want it to be 
spent.
    Can you reassure me that auditability, as prescribed by 
law, coming through this committee, that it needs to happen no 
later than 2017? Can you make a commitment to me today on the 
record that will be a priority of yours, making sure as, 
Secretary Panetta did and Secretary Gates before him, that 
auditability will be an essential priority of your time as 
Secretary of Defense?
    Senator Hagel. As I told you, Senator, I will. I make that 
commitment to this committee.
    Senator McCaskill. Then turning to contracting, I have yet 
to have provided to me, other than raw numbers that we spent, 
any data that would indicate that major infrastructure 
rebuilding as part of a counterinsurgency strategy works.
    There are many things that work in a counterinsurgency 
strategy, and one of them, as it was originally posed to me 
back some 6 years ago on this committee by General Petraeus, 
was that the Commander's Emergency Response Program (CERP) 
funds, that walking around money to fix plate glass windows in 
neighborhoods, that that was an essential part of the 
counterinsurgency (COIN) strategy.
    That morphed into our military building major 
infrastructure projects without really any data ever to 
indicate that the billions of dollars that we were spending 
was, in fact, advancing our military mission.
    In addition to that, it is clear if you want to look at 
Iraq and the failures that Iraq represents in some ways, one of 
the failures is the crumbling investments that this country 
made in Iraq: the health centers that never opened, the water 
parks that sit crumbling, the power facilities that were blown 
up before they even had an opportunity to operate. I can go 
down billions of dollars of waste because we didn't do the 
analysis on sustainability after we left.
    I am convinced that we have made the same mistakes in 
Afghanistan. I would like your response to this issue of major 
infrastructure building while we are in a conflict being 
conducted by our military, not by the U.S. Agency for 
International Development, not by the State Department, and 
whether or not you would make a commitment to come back to this 
committee with a report analyzing whether or not there is data 
to support that aspect of the COIN strategy.
    Senator Hagel. I will make that commitment, and it is part 
of the larger series of questions and factors always involved 
when a nation gets clearly committed, as we were, and still 
are, in Afghanistan, and were in Iraq for 8 years. When you are 
at war, the highest first priority is to take care of your 
people. As a result of that, all the rest of the normal 
latitude, and guidance, theory, and policy, is secondary.
    I think in both of those wars, because we got ourselves in 
so deep with so many people, and the welfare of our men and 
women was paramount, we tried a lot of things. We had never 
been this way before. We had never seen anything quite like 
these two situations. As a result, our Special Inspectors 
General have come up with billions and billions and billions of 
dollars that are unaccounted for, corruption, fraud, waste, 
abuse. It really is quite astounding. But when you think about 
the universe of money that went into both those wars, no one 
should be surprised.
    Now, how do we fix it? What do we do? To your point, how do 
we learn? How do we learn from this? We need to learn from 
this. It was not the fault of the military. The military was 
asked to do everything. We overloaded the circuits of our 
military. We said, you do it. You have the money. You have the 
structure. You have the organization. You have the people. Now 
go do it.
    We put these people--these young captains--you talked about 
CERP funds--in very difficult spots. These young captains were 
given $100,000 in cash, essentially walking around money to 
take care of tribal chiefs and so on and so on. It wasn't their 
fault. They were told to do this. This is what was part of the 
strategy.
    I do not question necessarily any particular strategy or 
part of it, but I do think it is part of the whole that you are 
talking about. If I am confirmed and go over there, I will take 
a look at this, and we will go deeper and wider into this 
because we owe it to our people. We owe it to the people of 
this country who pay the bills. For the future, what did we 
learn for future challenges?
    Senator McCaskill. Thank you. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman. Chuck, again, 
congratulations on your nomination. As we talked the other day, 
you and I have been good friends since I came to the Senate in 
2002, sat next to each other for 6 years on the Intel 
Committee, and during that process you cast some votes that I 
questioned. But we were always able to dialogue, and it never 
impacted our friendship, and I am very appreciative of that.
    You also were introduced by two of my dearest friends, 
Senator Nunn and Senator Warner, which certainly is a credit to 
you.
    I want to drill down, Chuck, on the issue that I think is 
going to be very much at the forefront--probably the number one 
issue you are going to have to deal with, assuming that you are 
confirmed, and that is the issue of our relationship with Iran 
and where we go in the future, short term as well as long term.
    Now, you wrote in your book, ``We blundered into Iraq 
because of flawed intelligence, flawed assumptions, flawed 
judgments, and ideologically driven motives. We must not repeat 
these errors with Iran, and the best way to avoid them is to 
maintain an effective dialogue.'' You then go on to advocate 
again, ``for a direct and strategic diplomatic initiative''.
    Now, I heard you in your opening comments say that your 
position on Iran is prevention, not containment, when it comes 
to their nuclear weaponization. I want you to expand on that, 
and I want to go back to Senator Inhofe and Senator Reed's 
question or comment relative to why you did not vote to 
designate the Iranian Revolutionary Guard Council as a 
terrorist organization.
    Iran is the number one terrorist sponsoring state in the 
world. I do not think there is any disagreement about that. I 
want you to expand on your position on a nuclear weaponized 
Iran, and talk about red lines. If your position is truly 
prevention and not containment, Chuck, what is the red line? 
What is the point? We know there are some things happening over 
there right now that are very serious. So how far do we go?
    Do you still advocate direct negotiations with Iran as you 
said and you made clear that all options are on the table, and 
you stated again that military options is one of those. If you 
will, talk about direct negotiation. We have never negotiated 
with a terrorist state. Why do you feel like that we ought to 
dialogue with them, even on this issue today?
    Lastly, what alterations, if any, do you think are 
necessary to our military force posture in the Gulf region to 
deter Iranian regional ambitions and support international 
diplomatic efforts to stop Iran from acquiring nuclear weapons 
capability? That is a broad statement on my part, broad 
question, but this is the issue from a national security 
standpoint, Chuck, and I would like you to be pretty specific.
    Senator Hagel. Let us start with the specific question on a 
vote regarding designating the Revolutionary Guard as a 
terrorist organization. You recall because you were there, 
there were 22 Senators who voted against that. The effort 
against it, the main point made on the floor of the Senate came 
from Senator Jim Webb. His point was we have never, ever 
designated a part of a legitimate government, a state--and when 
I say ``legitimate,'' it does not mean we agree with Iran, but 
it is a member of the United Nations. Almost all of our allies 
have embassies in Iran. So that is why I note an elected 
legitimate government, whether we agree or not.
    But we have never made any part of a legitimate independent 
government designated them or made them part of a terrorist 
organization. We have just never done that. So you say, well, 
so what? What is the big problem? The problem was, at least 22 
of us believed--they were both Republicans and Democrats, by 
the way, in that vote, but it was Jim Webb who was on the floor 
most of the time on it--said that if you do that, that is 
tantamount to giving the President of the United States 
authority to use military force against Iran without having to 
come back to get a resolution from, or partner with, or 
cooperate with, the Congress of the United States. Essentially 
if we vote for this, we are giving a President, in a sense, 
that authority. Now, you can agree or disagree with that.
    But I listened to that debate, and there was some pretty 
thoughtful debate. That debate I thought was pretty powerful 
with me. We were already in two wars at the time, and I thought 
that this made sense, and so I voted against it. That is why I 
voted against that. You might also remember that almost 
Secretary of State Kerry voted against it. Then Senator Obama, 
he gave speeches against it. He did not vote that day. Vice 
President Biden voted against it. Dick Lugar voted against it. 
There were some other Republicans.
    As to the Iranian red line, Persian Gulf, some of the 
Iranian questions you asked. I support the President's strong 
position on containment as I have said, and I will speak more 
specifically to a couple of the examples you used from my book. 
But his position I think is right.
    When you asked the question about red line, I think the 
President has gone as far as he should go publicly on that. He 
said clearly that in his words, he has Israel's back. He said 
that his policy is not to allow the Iranians to get a nuclear 
weapon.
    What constitutes when action would be taken? I think that 
is always something that should not be discussed publicly or 
debated publicly or out in the public domain.
    Your quotations from my book, which you acknowledge as well 
that I always said the military option should be on the table, 
and I had said that consistently as well as engaging with Iran. 
I have always thought it is far smarter to approach these very 
serious threats, including Iran, probably as significant a 
threat as we have out there today, although North Korea is 
beyond a threat. It is a real nuclear power and quite 
unpredictable. I think Pakistan is another very complicated 
reality.
    But staying on Iran, I think we are far smarter to do what 
the President has been doing, which I laid out, by the way, in 
my book. I have a chapter on Iran. I have two chapters on Iraq. 
I have a chapter on the Middle East. Getting the world 
community behind us with these U.N. sanctions through the 
Security Council of the United Nations. These are tough 
sanctions. They are having a tremendous impact, you know that, 
on Iran.
    If, in fact, the military option is the only one required, 
I think we are always on higher ground in every way, 
international law, domestic law, people of the world, people of 
the region to be with us on this if we have tried and if we 
have gone through every possibility to resolve this in a 
responsible, peaceful way rather than going to war.
    Everything I said in my book was about that. I do not have 
a problem with engaging. I think great powers engage. I think 
engagement is clearly in our interests. That is not 
negotiation. Engagement is not appeasement. Engagement is not 
surrender. I think if the time is right, the climate is right, 
the dynamics are right, we should find ways, if we can find 
ways. We cannot force it. But I think we are always smarter and 
wiser to take that approach initially.
    Posture in the Persian Gulf. Senator, our Fifth Fleet is 
located in the Persian Gulf in Bahrain. As you also know, we 
have a couple of carrier battle groups in that area. Our 
military posture there is very strong. It is very ready. It is 
very capable. These are contingencies and options that the 
Secretary of Defense, working with these Service Chiefs and 
their combatant commanders, always have to give in the present 
and make sure that we are prepared.
    Let me stop there, I may have missed some of the specific 
things that you wanted to discuss.
    Senator Chambliss. I am understanding you to say that you 
are not ready to discuss red lines in a specific way. Am I 
hearing that right?
    Senator Hagel. I do not think that is my role now to start 
with. I am not the Secretary of Defense. But I think the 
President is wise in his course of action in not discussing 
that publicly. I think it is a far smarter way to handle it, 
and I think he has said what he needs to say. I think it has 
been understood in Iran. I think the world understands his 
position.
    By the way, I have just been handed a note that I misspoke 
and said I supported the President's position on containment. 
If I said that, I meant to say that obviously his position on 
containment, we do not have a position on containment. I 
recognize that I have had more attention paid to my words the 
last 8 weeks that I ever thought possible, so I do not take any 
chances. Thank you.
    Senator Chambliss. I think I understood you correct on 
containment and prevention.
    Senator Hagel. Thank you.
    Senator Chambliss. Thanks, Mr. Chairman.
    Chairman Levin. Just to make sure your correction is clear, 
we do have a position on containment, which is that we do not 
favor containment.
    Senator Hagel. We do not favor containment. That is the 
President's position, and that was my position.
    Chairman Levin. Thank you. I just want to clarify the 
record.
    Senator Hagel. If you need further clarification, that is 
why I am here.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Good morning, 
Senator Hagel.
    Senator Hagel. Senator.
    Senator Udall. Thank you for your service. Thank you for 
your willingness to once again heed the call and lead DOD.
    We had a great private meeting with you last week. We 
covered many of the threats and challenges that our country 
faces: shrinking budgets, strategic national security shifts, 
and ensuring, as you have underlined over and over again 
already this morning, that we continue to provide fair and 
equal opportunities for all of our servicemembers and their 
families.
    Again, I want to tell you I appreciate that opportunity. I 
am going to take you up on your offer, if you are confirmed, to 
continue sitting down with you as a member of the Armed 
Services Committee.
    I know this issue has already been addressed, but I want to 
make sure that I am on the record as raising my concerns, and I 
want, as I think this committee should, to give you every 
opportunity to clarify and underline your point of view.
    When we met privately, you emphasized your determination to 
keep all options on the table with regard to Iran, including a 
military strike, if Iran continues to pursue a nuclear program 
in defiance of this international obligation.
    We also discussed your longstanding support of Israel and 
our longstanding relationship. But you have critics out there--
I do not have to tell you that--who maintain that your record 
on Iran is in question, and that you are anti-Israel. These are 
serious charges.
    So let me direct some questions your way. Why should 
Americans trust that you will consider every option when it 
comes to one of the most serious national security threats 
facing us today, which is Iran?
    Senator Hagel. First, thank you for an opportunity to 
clarify these issues. My record has been very clear on Iran. 
Senator Chambliss noted from my 2008 book and my chapter, 
specifically noting that I said the military option must remain 
on the table. I said that as recently in an op-ed that I co-
authored last year in the Washington Post with two former U.S. 
Central Command (CENTCOM) commanders.
    We talked about Iran, and one of the very specific points 
we bring out in that op-ed was the military option must remain 
on the table along with all the other areas of effort, 
expertise, diplomacy, economics, and sanctions, the President 
is using, which I have already said I support.
    My record is rather thorough on this, and I would continue 
to support that position, and I strongly support the 
President's position.
    Senator Udall. Senator, talk about your view on Israel, our 
relationship with Israel, how can we continue to have a special 
alliance with a country with whom we share more than an 
economic or political philosophy, but with a broader or moral 
connection that we have to Israel?
    Senator Hagel. I have said many times, just as I have said 
regarding the military option on Iran many times, in my book, 
speeches on the floor, interviews I have given, I am a strong 
supporter of Israel. I have been. I will continue to be. I have 
also said specifically, and I believe this is in my book, that 
we have a special relationship with Israel.
    Again, my record is pretty clear. I voted in 12 years in 
the U.S. Senate for every authorization, every appropriation 
that I had an opportunity to vote on for Israel. I have been to 
Israel many times. I have met with their leaders many times.
    So again, if you look at my record, I think my record is 
pretty clear in my strong support for Israel.
    Senator Udall. Senator, I heard you say when you discussed 
your vote against the resolution applying to the Iranian 
Revolutionary Guard, that in the end you were protecting 
Congress' prerogative when it comes to declaring war. Is that 
correct?
    Senator Hagel. That is exactly right. That is exactly what 
I was saying, and I did not say it, I guess, that way. But that 
was the point. Again, I say, like I have in answering some of 
the other questions, it was not a question of the objective. I 
shared the objective, and I suspect all 22 members in the 
Senate who voted against that resolution supported the 
objective. But as Jim Webb made the case I think pretty 
effectively, and Senator Webb was an individual who had rather 
considerable experience in this business. He had been Secretary 
of Navy under Ronald Reagan. He had been Assistant Secretary of 
Defense under Ronald Reagan. One of the most decorated veterans 
of Vietnam, U.S. Senator, celebrated author, lawyer. I thought 
he made a pretty strong, persuasive case. So did many of us.
    Senator Udall. Let us turn to cyber security. I was pleased 
that you mentioned cyber security early in your initial 
remarks. The Pentagon's move to significantly expand its cyber 
security assets and knowledge. I have to talk about Colorado 
since I represent Colorado. The Air Force Academy is well 
positioned to train those new cyber security experts. We are 
also the home of Space Command and U.S. Northern Command.
    Would you talk a little bit more about your take on cyber 
security, what we ought to be doing, what sorts of resources we 
need?
    Senator Hagel. Senator, you may know that I have been to 
those facilities in Colorado a few times, and I do not know as 
much about them as you do. But I am pretty familiar with them. 
They are essential to our national security.
    Cyber, I believe, represents as big a threat to the 
security of this country as any one specific threat for all the 
reasons this committee understands. It is an insidious, quiet 
kind of a threat that we have never quite seen before. It can 
paralyze a nation in a second, not just a power grid or a 
banking system, but it can knock out satellites. It can take 
down computers on all of our carrier battleships. It can do 
tremendous damage to our national security apparatus.
    That is the larger threat. But when you start defining it 
down, this body, I know. I watched it, went through a pretty 
agonizing 3 months at the end of 2012 trying to find a bill 
that they could agree on cyber. I know, I believe, Congress 
will come back at it in this new Congress. I think you must, 
and you know that.
    Because we have different intergovernmental authorizations 
here--Department of Homeland Security, DOD--where is the 
capacity? Where are the budgets? Where are the authorities? 
This is law enforcement. This is privacy, business, a lot of 
complications that we have really never, ever had to face 
before on other national defense threats to this country.
    So cyber will be an area that we will continue to focus on. 
We must. It is an area that I will put high priority on if I am 
confirmed to be Secretary of Defense.
    Senator Udall. Senator, in the 2013 National Defense 
Authorization Act (NDAA), there is a provision that compels the 
military to accommodate the conscience moral principles or 
religious beliefs of all members of the Armed Forces. It does 
sound reasonable on the surface, but I am especially concerned 
that this could lead to misguided claims of a right to 
discriminate against lesbian, gay, and bisexual servicemembers, 
women, or persons with certain religious beliefs.
    The President has said--I want to quote him--that DOD will, 
``not permit or condone discriminatory actions that compromise 
good order and discipline or otherwise violate military codes 
of conduct''.
    Will you ensure that DOD, in accommodating religious 
beliefs or matters of conscience, does not tolerate 
discrimination or harm to others?
    Senator Hagel. Absolutely. I will faithfully, diligently 
enforce our laws. All men and women deserve the same rights, 
and I can assure you that will be a high priority, to enforce 
that and ensure that in every way through the entire line of 
chain of command and accountability.
    Senator Udall. Thank you, Senator Hagel. I look forward to 
the second round of questions.
    Senator Hagel. Thank you.
    Senator Udall. I think it is now afternoon, so good 
afternoon to you, and thank you for being here.
    Senator Hagel. Senator, thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator Wicker.
    Senator Wicker. Let me just follow up on that. Does that 
mean, though, a chaplain would have to perform a same-sex 
marriage, in your view, if he objected based on conscience?
    Senator Hagel. I think the Pentagon regulations show, 
Senator, that same-sex marriage is legal in the nine States.
    Senator Wicker. No, would a chaplain be able to bow out of 
that procedure based on conscience?
    Senator Hagel. Certainly.
    Senator Wicker. Okay.
    Senator Hagel. But what we do not want, Senator Udall's 
point is someone to be denied to be married in a chapel or a 
facility and so on, but certainly a matter of conscience, yes. 
What I am talking about is a strict interpretation of defending 
the law, which defends rights.
    Senator Wicker. Thank you very much for clarifying that, 
and thank you for calling on me early on. We had our 
conversation on January 8, and I appreciated that opportunity.
    You just said that your statements over time have gotten a 
lot more attention than you ever dreamed possible. I hope you 
agree that is entirely appropriate in this context.
    Chairman Levin mentioned in his opening statement that in 
speaking your mind, you said terrible things that caused him 
concern. He asked you about that. Senator Inhofe mentioned 
several of your statements involved what some people feel are 
policy reversals based on expediency, and so those are 
concerns.
    You and I talked about two of these topics during our 
conversation, and one of them was with regard to sanctions 
against Iran. You told me in our conversation that you opposed 
unilateral sanctions because they do not work and they isolate 
the United States. Indeed you had made that statement to the 
Omaha paper just the day before. ``I have not supported 
unilateral sanctions because when it is us alone, they do not 
work and they just isolate the United States,'' in the Omaha 
paper.
    I will have to say that statement seems to be in direct 
contradiction to your letter to Senator Boxer 1 week later when 
you told her, ``I agree that with Iran's continued rejection of 
diplomatic overtures, further effective sanctions, both 
multilateral and unilateral, may be necessary.''
    Now, a week before that you said that you have opposed them 
because they do not work. Senator Levin mentioned in his 
statement he disagrees that. He believes they do work. You gave 
him an answer to that statement, and we have it on the record. 
But let me just suggest to you, Senator, that if words have 
meaning, there is no two ways about it. The statement that you 
gave in the Omaha paper and that you gave to me the following 
day is substantially and substantively different from what you 
wrote to Senator Boxer a week later.
    The Office of Secretary of Defense is one of the most 
powerful positions in the country, and arguably in the world. 
This official, whoever he or she is, must lead with clarity and 
precision, and people around the world need to rely on the 
clear meaning of the words of the Secretary of Defense.
    Now, the other thing we discussed that gave me concern 
during our conversation on January 8 was your statement about 
the Jewish lobby. You told me that you have had apologized for 
using that terminology, and you retracted the use of the term 
``Jewish lobby''. What you said was the Jewish lobby 
intimidates a lot of people up here. This was in an interview 
that you gave to Aaron David Miller. You said, ``I've always 
argued against some of the dumb things they do because I don't 
think it's in the interest of Israel.''
    Here is my problem with your position at this point. You 
have corrected the term ``Jewish lobby,'' and I assume now the 
correct term would be ``Israel lobby'' or ``Israeli lobby''. Do 
you still stand by your statement that they succeed in this 
town because of intimidation? That it amounts to causing us to 
do dumb things, because I want to say this, Senator. You are 
here today as the potential Secretary of Defense, and it would 
seem to me that however you characterize them, you have 
suggested that there is an effective lobby out there, whether 
you call them the Jewish lobby, the Israeli lobby, or the 
Israel lobby, and that they succeed in doing dumb things 
through intimidation, and that U.S. policy has been the wrong 
approach because the intimidation has worked.
    So when you talked about the Jewish lobby, were you talking 
about the American Israel Public Affairs Committee? Were you 
talking about NORPAC? Were you talking about Christians United 
or Israel? Do you still believe that their success in this town 
is because of intimidation and that they are, as you stated, 
urging upon our Government that we do dumb things?
    Senator Hagel. First, I have never been accused of 
political expediency. I do not do that. It probably has gotten 
me in some trouble, Senator.
    Second, to address the last comment, and then we will go 
back sanctions. I have already said I regret referencing the 
Jewish lobby. I should have said pro-Israel lobby. I think it 
is the only time on the record that I have ever said that.
    Now, you all have done a lot of work with my record, and, 
yes, it is appropriate, by the way. Any nominee's record, what 
he or she thinks, says, done, absolutely. I was on your side of 
dais for 12 years, so I understand that and that 
responsibility. So I do not have any problem with that. I have 
already noted that I should have used another term, and I am 
sorry, and I regret it.
    On the use of intimidation. I should have used 
``influence,'' I think would have been more appropriate. We 
were talking about in that book, and you evidently read it, 
Aaron David Miller's book, by the way, it is a book, ``The Much 
Too Promised Land.'' He has spoken out directly over the last 
few weeks, written an op-ed about my position because it has 
gotten some attention as you have noted, and been quite 
favorable to me, and said much of that was taken out of 
context, and he was offended by it. Those were his words.
    Those of you who know something about Aaron David Miller 
know that he is Jewish. He is a highly respected individual who 
has counseled Presidents and Secretaries of State. He also says 
in that interview, which is a fairly short interview, he 
mentioned that I am a strong supporter of Israel. That it is in 
the interview. So I think that says something.
    I should not have said ``dumb'' or ``stupid'' because I 
understand, appreciate, there are different views on these 
things. We were talking about Israel. We were talking about the 
Middle East. We were not talking about Armenia, or Turkey, or 
the banking influence, or chamber of commerce influence. That 
was what the context of my comments were about.
    Your point on the unilateral sanctions conversation and the 
quote, a couple of points. Let us go back to the ILSA vote, 
about the original ILSA vote during the Clinton administration 
and connect that to a comment I made in the World Herald about 
they do not work. They are ineffective. By the way, I have 
already noted for the record here that I have supported and 
voted for some unilateral sanctions, and I think I noted three 
specific ones that I recall.
    But on your specific question about the specific comment. 
Just to give you an example of partly what I was talking about. 
You were not in the Senate at the time. Some were. But those 
who were here in the Senate might recall the EU's reaction to 
that ILSA Act. I was not in the Senate when that was voted on 
originally, so I did not have a vote.
    But in 1998, the EU passed a resolution against the United 
States and threatened to take the United States to the World 
Trade Organization. As a consequence, Secretary Albright had to 
get into this, and as a consequence of that, President Clinton 
had to sign a waiver to allow a French oil company not to be 
part of that U.S. unilateral waiver.
    Now I am not suggesting United States action should be 
hostage to the EU or any other country. But what I am 
suggesting is many times there are consequences to these 
actions. Now, every Senator has their own position on these, 
exercise their own judgment as they should, and cast their own 
vote. So I don't think necessarily that there was a disconnect 
from what I said in The World Herald to where I have been on 
international sanctions.
    As to your specific point about supporting unilateral 
sanctions as well as international sanctions in the letter to 
Senator Boxer, it is a different situation to start with. We 
already have very effective international sanctions on Iran.
    Senator Wicker. Are you saying that those two statements do 
not contradict each other, the one to the Omaha paper and the 
one to Senator Boxer?
    Senator Hagel. There are two points to it. Let me finish if 
I could, Senator, thank you, my second point.
    My second point is this. Where we are with Iran today, the 
international sanctions that have been placed on Iran, that 
puts Iran and the United States in a far different place than 
where we were in 2000, or 1998, or 2001 when I did not support 
the reimposition. By the way, the Bush administration did not 
either. They did not want a 5-year reimposition for some of the 
same reasons that I questioned that reimposition of 5 years on 
ILSA.
    But my point in making where we are today, connecting that 
to unilateral sanctions, then we have a different situation. 
Unilateral sanctions, because we have already got strong 
international sanctions, should be considered. I think the 
President is right to consider those. I would support that 
because it is different than it was in 2001 or 1998.
    Senator Wicker. Thank you.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Hagan.
    Senator Hagan. Thank you. Senator Hagel, thank you for 
being here. Thank you for your service to our country and the 
military and your service in the U.S. Senate. I also want to 
thank your wife and your family for standing with you today.
    You played an important role in supporting Vietnam veterans 
impacted by the exposure to Agent Orange. I have been involved 
in a similar set of issues facing veterans stationed at Camp 
Lejeune. They continue to search for answers about the effects 
of water contamination there. As many as a million marines and 
their families stationed at the base between the early 1950s 
and the 1980s may have been exposed to harmful chemicals that 
led to the development of cancer and other ailments.
    The quest for answers in looking into this has been long. 
It has been drawn out, and the recognition that men, women, and 
children were dying or going broke paying out of pocket for 
their treatment while they were waiting for these various 
studies to be completed on the water contamination. We in 
Congress took action last year. The House and the Senate passed 
a bill that will provide for the treatment of veterans and 
their family members through the VA.
    I continue to believe that the families of those stationed 
at Camp Lejeune during this time period, they deserve answers 
from the U.S. Government about who was exposed to the harmful 
chemicals, what impact that might have had on their health, and 
what the Government knew about this exposure.
    I have been fighting for answers with a group of other 
committed Senators on a bipartisan basis. Along the way 
progress has been held up by endless bureaucratic delays and 
obstacles.
    My question to you is, do you agree that these marines and 
their families deserve complete answers about the water 
contamination that occurred at Camp Lejeune? If confirmed, will 
you pledge to work with us to overcome any bureaucratic hurdles 
that may halt or delay the pursuit of answers for the affected 
marines and their family members?
    Senator Hagel. Thank you. You noted that we had a long 
conversation about this. I committed to you in your office. I 
will make that commitment in front of this committee. I will do 
that.
    There should never, ever be a question about the health, 
and the safety, and the environment that we put our men and 
women and their families in when we ask them to make sacrifices 
to serve this country. I am committed to that, and we will have 
further conversations.
    Senator Hagan. Thank you. I know you have answered a number 
of questions about Israel already today, but I do have one I 
want to ask you also. There is a special and historic bond 
between the United States and Israel, and I am personally 
committed to Israel's security and identity as a Jewish state.
    When we met earlier this week, I was pleased to hear you 
say you agree and that you also support a two-state solution 
and oppose any unilateral declaration of a Palestinian state.
    We also discussed the need for a strong military and 
intelligence engagement between the United States and Israel. 
Just last fall I was in Israel, and I have spoken with senior 
military officials from both countries, and I have continually 
heard that the ties between our military and our intelligence 
organizations have never been stronger.
    If confirmed, do you intend to maintain this close 
relationship, and do you have any ideas for how we can further 
strengthen this coordination?
    Senator Hagel. I would once again reaffirm the commitment 
that I made to you to this committee. I absolutely support the 
continuation and the strengthening of our relationship with 
Israel. As been noted before, in my book, a chapter I have on 
Israel, I talk about the special and historic relationship 
between the United States and Israel.
    It is critically important that the qualitative military 
edge that we have assured Israel since 1948 be maintained and 
be enhanced. The Iron Dome is I think but one example. The 
latest military exercise we had with the Israelis last fall, 
Austere Challenge, it was the largest military exercise between 
our two countries in the history of our two countries. I think 
our intelligence agencies are working closer, and are stronger 
and more coordinated than ever before.
    I think this President has done as much to support Israel 
as any president, as I mentioned earlier, since Harry Truman, 
and I would look forward to continuing to follow those policies 
and enhance those policies.
    Senator Hagan. Thank you. I wanted to ask a question on 
sequestration. Stopping sequestration from occurring is very 
important to me. In North Carolina, we have 7 military 
installations, and we have over 100,000 Active Duty 
servicemembers in my State. I believe that these cuts are going 
to harm our national security, will impair our readiness, will 
defer necessary maintenance that will help keep our troops safe 
and delay important investments in research and procurement, as 
well as stunt our economic recovery at this time.
    I do not believe we can allow these cuts to move forward. 
Congress needs to work on a bipartisan basis on a balanced plan 
that will help eliminate this threat of sequestration. Also we 
have to reduce our deficit and protect the critical investments 
and areas in our national defense.
    When we spoke earlier this week, I was pleased to hear you 
say that you did not support these indiscriminate, 
unprioritized cuts that sequestration would cause. If allowed 
to take effect, how will sequestration impact the Department's 
ability to meet the future threats and challenges?
    As I shared with you, I chair the subcommittee of this 
committee on Emerging Threats and Capabilities, so I am 
particularly interested in your thoughts. You were commenting 
earlier to Senator Udall's questions on cyber security issues, 
which is obviously being considered in the Emerging Threats and 
Capabilities Subcommittee.
    My question is, what impact do you believe that these cuts 
would have on our servicemembers and their families at home and 
abroad, and in particular the cuts--the sequestration, how 
would this impact areas such as cyber security and the other 
areas?
    Senator Hagel. First, as we have said this morning and you 
know, the Chiefs have made very clear and Secretary Panetta, 
there will be consequences, significant consequences to the 
management of our Defense Department and our ability to have 
the flexibility to make the decisions not just for the 
immediate, but for the future.
    When you hang that kind of uncertainty over any 
institution, but especially the institution charged with 
national security in our country, it is very dangerous. 
Readiness is obviously the number one priority, and we will 
continue to do that. The Chiefs have already started to work 
through this, and I think in some of the public statements they 
have made, we are preparing for that. They will be prepared. If 
in the event the sequestration does take effect, we will be 
ready to deal with it. But this is going to be very difficult.
    We talked a little earlier here this morning about how we 
are going to have to reduce training, steaming time, flying 
time. But I think the American people do need to be reassured, 
as I think Secretary Panetta and the Chiefs have, that the 
security of this country is not going to be in jeopardy. But it 
is going to be difficult, and it is going to affect longer-term 
kinds of planning.
    But make no mistake, if this happens, this is going to be a 
severe problem.
    Senator Hagan. My time is up. Thank you for your comments.
    Chairman Levin. Senator Hagan, thank you so much. Now we 
were going to work right through the vote that is going on now, 
but we are going to take a 10-minute recess right now and come 
right back. Then we are going to call on Senator Ayotte and 
then Senator Manchin. They are next in line, and I urge them to 
go vote and come right back.
    We will now recess for 10 minutes. [Recessed.]
    Chairman Levin. We will come back to order.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank you, Senator Hagel, for your service to our 
country and for being here today in this important hearing, and 
I want to thank your family as well.
    Senator Hagel, I think we have established, as I understand 
it from the prior questions you have been asked, in July 2001, 
you were one of only two Senators to vote against extending the 
Iran Sanctions Act, the sanctions in that act. That is a vote 
that you have agreed that you have taken. Correct?
    Senator Hagel. Yes.
    Senator Ayotte. Yes or no? Yes. That was when you were only 
one of two Senators in the entire Senate to vote against that.
    Also, in 2008, I believe you were asked you were again one 
of two Senators within the Senate Banking Committee, though, 
not the entire Senate, to vote against the Comprehensive Iran 
Sanctions Accountability Act of 2008. Is that right?
    Senator Hagel. That is right.
    Senator Ayotte. Okay. Thank you.
    Senator Hagel. Yes. I am sorry. Yes.
    Senator Ayotte. Yes, thank you, Senator.
    As I understand it, on October 2, 2008, Majority Leader 
Harry Reid brought a similar bill to the floor. In fact, it was 
called the Comprehensive Iran Sanctions Accountability Act of 
2008, and he brought it to the floor on October 2, 2008. There 
have been media reports that you blocked unanimous consent for 
the consideration of that bill. Are those true or not?
    Senator Hagel. I was one of some Republican Senators who 
did not want that vote to go forward. I voted against it in the 
subcommittee, and the reason I did was because the Bush 
administration did not want that bill to go forward.
    The reason that they didn't is because they were involved 
in negotiations with the Russians in the U.N. and Security 
Council members to put multilateral sanctions on Iran.
    Senator Ayotte. Thank you.
    But just to be clear, you did block unanimous consent of 
that bill in 2008?
    Senator Hagel. I was part of an effort, yes. That is right.
    Senator Ayotte. Okay. Thank you.
    Also, would it surprise you that an earlier version of that 
sanctions bill was actually cosponsored by Secretary Kerry, 
Secretary Clinton, and President Obama at the time? You were 
not a cosponsor. Would that surprise you?
    Senator Hagel. Well, no, not necessarily. I didn't ever 
base my votes, Senator, on what everybody else thought or did. 
I voted based on what I thought was right.
    Senator Ayotte. Also, we, of course, the sanctions that are 
in place now, that bill or its next generation passed the U.S. 
Senate after you left in a vote of 99 to 0, and no one in the 
Senate, in fact, voted against that. So that has been our clear 
policy of the bill, really the next generation of the bill that 
you blocked in the Senate.
    I want to ask you also about your position with respect to 
involvement in the Global Zero report. I know many people have 
asked you questions about this.
    Senator Hagel. Yes.
    Senator Ayotte. Here is what is troubling me. You have 
testified before this committee today that you have never been 
for unilateral nuclear disarmament. In other words, unilateral 
actions by the United States of America. Yet this report 
itself, which you call an illustration, its illustration or 
recommendation or however you want to frame it, is to 
actually--there are many recommendations in it.
    One of them is to eliminate a leg of our triad, which is 
the land-based ICBMs. You would agree with that? That is the 
illustration that is contained in this report, or you call it 
an illustration. Is that right?
    Senator Hagel. I call it an illustration, Senator, because 
that is the term it used at the front end of the report.
    Senator Ayotte. Well, let us----
    Senator Hagel. Not a recommendation.
    Senator Ayotte. Let me talk about the other terms that this 
report uses because this report twice, as Senator Sessions 
asked you, on page 1 and on page 16 says that the illustrations 
or this example given in this report, one of which is 
eliminating a leg of our nuclear triad could be implemented 
unilaterally.
    So here is what I am struggling with. Why would you ever 
put your name on a report that is inherently inconsistent with 
what you are telling us today is that you have never been for 
unilateral disarmament as a possibility?
    Senator Hagel. It is not inconsistent, I don't believe, 
Senator. But you used the term ``could''. That is a pretty 
important operative word in the report.
    The report does not recommend we do these things. The 
report says ``could,'' ``illustrative,'' ``scenarios,'' 
``possibilities''. You probably know the four other individuals 
who were involved in that report, mainly General Cartwright, 
former strategic commander and----
    Senator Ayotte. Senator Hagel, I know we don't have a lot 
of time here. I don't dispute the qualifications or the service 
of the other individuals that are involved in this report. But 
of all the illustrations and of all the ``coulds'' you could 
pick, this report says that the President could implement these 
unilaterally, although that is inconsistent with what you say 
is your position. Yet you signed off on this.
    This report also says of all the illustrations you could 
have picked, the illustration is eliminating a leg of our 
nuclear triad. One thing that troubles me is that of all the 
things that this group could have picked as what you call an 
illustration is a significant reduction in our nuclear 
deterrent.
    To me, I view that as troubling and inconsistent. One thing 
I would hope you wouldn't do as Secretary of Defense is to sign 
off on a report that would say something like unilateral, like 
this one does, that could be implemented unilaterally that is 
different than your philosophy or our policy.
    Senator Hagel. As Secretary of Defense, I won't be signing 
off on reports in the same way as a private citizen. Obviously, 
I will have a different kind of responsibility if I am 
confirmed by the Senate.
    But I don't think that there is anything that also changes 
my position in that report because it was a letter sent, which 
you may have, to the President of the United States----
    Senator Ayotte. Just so we are clear, and I am not--I don't 
want to interrupt you, but we just don't have a lot of time. 
Just so we are clear, you don't view what you are telling us 
today and the language in this report as inconsistent?
    Senator Hagel. I do not because it wasn't a recommendation. 
The report also says and the authors of it says, have always 
said, none of this can be any reductions unilateral, just like 
any strategic arms reduction treaty that we have signed, both 
Republican and Democrats have led on that, has to be bilateral, 
has to be verifiable, has to be negotiated.
    I have always been there, and that is where we have been on 
this report.
    Senator Ayotte. Okay. Thank you.
    May I follow up on the discussion about containment, 
nuclear containment with Iran? The first question I would have, 
as you said very clearly to Senator Levin, that you believe 
that a military option should be on the table with respect to 
Iran. In fact, I think you said, ``I do, I have, and I strongly 
agree'' in terms of that being one of the options the President 
of the United States would have in addressing Iran is the 
language that you said.
    Senator Hagel. Yes.
    Senator Ayotte. Can you help me understand when you went to 
Islamabad, Pakistan, in 2006, you said at that time that a 
military strike against Iran, a military option is not a 
viable, feasible, or responsible option. It strikes me as what 
you are saying about the military option now seems inconsistent 
with that statement.
    Why would you make that statement in Pakistan that it is 
not a viable, feasible, or responsible option in light of your 
statement today that you do, ``I have, and I strongly agree'' 
that a military option should be on the table?
    Senator Hagel. That statement was made in the context of 
all options regarding Iran, and Pakistan was where I was at the 
time. The larger context of that was nuclear powers, which 
certainly Pakistan is part of that club.
    Not unlike what Secretary Gates said about a strike on 
Iran, my point was that this would not be a preferable option. 
There would be consequences to this option. Things would happen 
as a result of it.
    If we could find a better option, a better way to deal with 
Iran to assure they do not get nuclear weapons, then we are far 
better off. That was the context of that statement.
    Senator Ayotte. Senator Hagel, I know that my time is up, 
and I know we will have an opportunity for a second round of 
questions. But as I see your quote, it didn't say preferable 
option. It said it was not a responsible option. I view those 
words as having a very different meaning.
    So I look forward to following up in the subsequent round 
of questioning. Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Manchin.
    Senator Manchin. Thank you. Thank you, Mr. Chairman.
    Senator Hagel, thank you so much and your family for your 
service and for putting your services on the line for us. I 
appreciate it very much.
    I would like to say this. You and I have not known each 
other before. I never had the pleasure of serving with you, 
which I wish I would have. We had a great conversation. You 
bring a breath of fresh air, truly a breath of fresh air to 
this process in a bipartisan way. Having two great Senators 
sitting by your side--one a Democrat, one a Republican--that 
basically support you wholeheartedly speaks volumes in the 
toxic process that we have today.
    With that being said, also everyone has been so fixated on 
your past, what you have said, and I think I have come to learn 
in the very short time I have been a Senator that this town and 
this process and this body has become almost a guilt by 
conversation. With that being said, I respect you being the 
person being able to say what you thought needed to be said. 
You voted the way you thought you should be voting for your 
constituents and your country, and you weren't really driven by 
your party or by any pressure groups.
    I can't tell you how much I wish I would have served with 
you. Sometimes I feel very lonely.
    With all that being said, sir, we are asked to consider you 
as a part of the Cabinet. Is there anything that would lead us 
to believe that you wouldn't follow the orders that were given?
    Senator Hagel. No. I understand clearly the 
responsibilities of the Secretary of Defense. As I said in my 
opening statement, those responsibilities are very serious. I 
don't know of many jobs that are more serious, and I would 
obviously always make every decision for the Defense Department 
and my advice to the President based on only one thing, and 
that is the security of this country.
    Senator Manchin. I looked back at your record. You and I 
come from the same era. We are very close in age, and I 
remember the Vietnam era very well. That, I think, shaped all 
of us to a certain extent of how we looked after, post-Vietnam, 
of how we would have looked at it if we would have known what 
we knew before.
    I am sure that kind of guided you as you looked at this, 
Iraq, and I saw the information that we were given. If I had 
been a Senator, probably I might have voted also, like many 
people that were misled.
    But after having seen 5 or 6 years of that unfortunate 
scenario play out, the surge, and I know where you are coming 
from, would you say that your experiences in Vietnam and 
looking at basically what sometimes our misguided mission had 
been shaped a lot of your positions today?
    Senator Hagel. There is no question that as I have said 
this morning, that my experience in Vietnam very much guided 
the questions. I think I noted a couple of times in my opening 
statement that it was one fundamental question that I always 
asked, was the policy worthy of the men and women that we are 
asking to make the sacrifices?
    I know there are differences of opinion. You mentioned 
Iraq. You mentioned the surge. My positions there were very 
much guided by, well, what is the political purpose of the 
surge?
    Senator Manchin. Right.
    Senator Hagel. Where do we go from here? Yes, you put 
35,000 more American troops in an area for a sustained period 
of time or more on top of more than 100,000 we already had 
there, you will have a tactical victory. But there will be a 
cost for that victory.
    That is what always guided me. Do we understand the costs? 
Are we prepared to make those costs in lives? Then where was 
the bigger answer here? Where were we going with the surge? How 
was this going to take us, advance us to where we needed to go, 
and where did we think we needed to go?
    So, yes, those experiences did shape my questions.
    Senator Manchin. I appreciate that. Let me just say that as 
speaking of now, what we deal with and the concerns that people 
had with your nomination, the support of Israel, I have no 
doubt in my mind your support of Israel as our greatest ally 
and would always be there. I think you have answered that. I 
think we all feel very comfortable with that.
    Also your commitment that Iran should not under any 
circumstance have the ability to have a nuclear weapon, and I 
appreciate that position very much.
    Where we go with the strength of our Army if we have our 
military might in DOD, the National Guard, how does the 
National Guard play in your role of thinking of what they 
should be doing and what they could be doing?
    Senator Hagel. The National Guard now has a chair at the 
table with the Joint Chiefs. General Grass represents the 
National Guard effectively, a new chief. But their role will 
continue to be important, as will the Reserves.
    I think we saw over the last 12 years of war how important 
our National Guard is and the Reserves. We could not have 
conducted those two wars without the National Guard and 
Reserves. I think that has professionalized both Services. They 
are going to continue to be necessary. They are important.
    Their training, their credibility, their leadership, that 
is obviously why the decision was made to assure their 
representation with the Joint Chiefs, and I strongly support 
the National Guard and Reserves.
    Senator Manchin. Personnel, I think that Senator McCaskill 
touched on things I am very concerned about. Every time I hear 
about the sequestering and people tell me that if we do a 
sequestering it could destroy our ability to defend ourselves 
and have the military might that we do.
    Now I don't see that whatsoever, and I followed the 
statistics. I followed all the post-war eras from starting with 
Korea and Vietnam, Cold War, and where we are today. This will 
be the least amount of money that we have asked to draw down 
under any post-war time. But yet everyone is hollering that it 
will be devastating.
    I know there is a way to do that, but the contracting. We 
are having a hard time getting our hands around the 
contracting, the cost of contracting, the ability for people in 
the contracting world to be reimbursed by over $700,000, almost 
twice what the President gets paid. Some of these things, would 
you embrace working with us and sitting down and looking and 
embracing an audit?
    Myself and Senator Tom Coburn have had legislation asking 
for a complete audit of DOD. Your thoughts on those two things, 
sir?
    Senator Hagel. Of course, I will, and as I have noted this 
morning, I am committed to do that. I will do it.
    Accountability is a primary responsibility of any 
institution or organization. That is clearly in the purview of 
Congress. We have to do it. We have to improve on the process.
    We talked a little bit this morning about the astounding 
amount of waste, fraud, and abuse the Inspector General, 
Special Inspectors General both in Iraq and Afghanistan have 
found. I am committed, as I have said, to assure that we make 
that deadline of 2017 on the audits, and I will work with you 
closely on that.
    Senator Manchin. My time is up, and one thing I want to 
state that we talked about in my office is the commitment to 
help our returning veterans get jobs. The Jobs Caucus, ``I Hire 
a Vet,'' it is so important. I appreciate your support for 
that. I look forward to working with you that we can put more 
of our vets back to work when they come home and get them back 
into mainstream America.
    Thank you, sir. I look forward to voting for you.
    Senator Hagel. Thank you.
    Chairman Levin. Thank you, Senator Manchin.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman and Mr. Inhofe.
    Good afternoon, Senator. It is good to see you again.
    Senator Hagel. Thanks.
    Senator Fischer. I want to begin by thanking you for your 
service to our country and to the State of Nebraska. I do 
appreciate your continued willingness to serve the United 
States.
    But I need to be honest with you. After our meeting last 
week, I still have some concerns about your nomination. Many of 
my colleagues are concerned that you have changed your views, 
and I share that concern. But I must admit that I am more 
worried that your views have not changed.
    From your meeting with me last week, it was clear that you 
maintain the views that have led to so much scrutiny of your 
nomination. Despite these recent claims to the contrary, you 
continue to hold, I believe, extreme views far to the left of 
even this administration.
    In particular, your clear statement to me during our 
meeting that if given the opportunity to recast your vote on 
the Iranian sanctions, you would still oppose those sanctions. 
I believe that indicates that you hold these concerning views.
    Our Nation faces many challenges, perhaps none greater or 
more immediate than Iran's continued progress towards obtaining 
nuclear weapons. At the same time, DOD is entering a period of 
transformation that will likely define its role for many 
decades to come. The future of our nuclear deterrent could 
depend on our choices made by the next Secretary of Defense.
    I am going to bring up the report that we have heard about 
quite a bit. You are listed as a coauthor of that May 2012 
Global Zero report on our nuclear posture. I believe there is a 
recommendation in there, and I believe that the recommendation 
is to drastically reduce the U.S. nuclear forces.
    When we spoke last week, you described this report as being 
authored by General Cartwright. I had the impression, and I 
believe you implied to me, that you weren't closely affiliated 
with it. But you are listed as a coauthor of that report, as 
one of the five coauthors.
    Moreover, you told me at that time that this report 
discussed options. You have reiterated that stance today. But 
after I have reexamined it once again, the only options that I 
have found in the report are related to how best achieve those 
drastic reductions that I believe it advises. There are no 
alternative views or dissenting opinions that are presented or 
discussed in the report.
    It states many controversial opinions. It states them as 
facts in support of its conclusion, and I believe it is 
important to determine whether or not you agree with those 
positions. As it has been said before, my time here is limited, 
and so I would like to quickly go through and review some of 
those more concerning proclamations that it makes with you. I 
would appreciate if we could kind of go through this quickly.
    For example, the U.S. ICBM force has lost its central 
utility. That is stated in the report. Do you agree with that?
    Senator Hagel. Senator, that report was not a 
recommendation. That report, as we have said, was a series of 
scenarios. Again, I use the term ``illustrative'' because that 
was the beginning of the report as possible ways we could 
continue to reduce our warheads. Not unilaterally, but 
bilaterally.
    Every treaty we have ever signed to reduce warheads and the 
thrust capability with the Russians has been about reduction. 
So that is not new. That is where it has always been.
    But ICMBs, your specific question, it is a 25-page report. 
I assume you have read it. It talked about one of the reasons 
ICBMs may well eventually be insignificant because of the 
overflight over Russia and so on. Now those aren't fictional 
analyses. Those are facts.
    Now no one is recommending in that report--and you probably 
know General Cartwright. When he was in Omaha, you probably got 
acquainted with him. These are serious people who understand 
this business, and no one is recommending that we unilaterally 
do away with our ICBMs.
    What that report was about was looking at where this is all 
going. Again, the title of the report was ``Modernizing Our 
Nuclear Strategy,'' not eliminating it.
    Senator Fischer. Correct. But do you agree with the 
statement made in the report that the ICBMs, that force has 
lost its central utility?
    Senator Hagel. That is not what the report said.
    Senator Fischer. I have it--I have it cited, Senator. With 
respect, I can enter that into the record. But it is cited in 
the report.
    Senator Hagel. The report, in the overall context, ICBMs 
and all of the parts of that report were about the utilities of 
our triad, where is this going, and the money that we are 
investing in it, and we have to look at it. I think those kinds 
of reports are valuable to assess our needs, to assess our 
nuclear capability, to assess our nuclear deterrent.
    I mean, we do studies all the time. This was not an 
official report from an official government. Think tanks do 
this all the time. I think that is valuable.
    Now whether policymakers----
    Senator Fischer. Excuse me. I, too, think that reports from 
various organizations--think tanks, individuals, groups--I 
think those are all very important in getting information and 
opinions out there. But when you coauthor a report, I think you 
should be able to answer if you agree with statements that are 
made in the report.
    Senator Hagel. I do not agree with any recommendation that 
would unilaterally take any action to further reduce our 
nuclear warheads on our capability. But again, that is not what 
the report said.
    But I do not agree with that. Every option that we must 
look at, every action we must take to reduce warheads or 
anything should be bilateral. It should be verifiable. It 
should be negotiated.
    Senator Fischer. Every action that this country takes needs 
to be bilateral?
    Senator Hagel. I didn't say that. I said in nuclear 
capabilities in our warheads. When we are talking about 
reducing warheads, as every treaty we have signed with the 
Russians has been bilateral. It has been verifiable.
    Ronald Reagan said it best, ``Trust, but verify''. I think 
that is the key word. He also said, as I said this morning, we 
should wipe nuclear weapons from the face of the Earth.
    I think almost every President has agreed with that, 
including, by the way, this President, who has seen this 
report. World leaders do agree with the continued reduction, 
and this is not a report that is out of the mainstream at all. 
President Obama has said in his Prague speech in 2009 that that 
was his goal, as Ronald Reagan did, as many Presidents did.
    Senator Fischer. Thank you.
    If I could continue on this vein of questioning, please? 
Also, as I read the report, it calls for all U.S. tactical 
nuclear weapons to be eliminated over the next 10 years and 
asserts that their military utility is practically nil.
    Do you agree with that statement?
    Senator Hagel. Senator, I don't believe it calls for that. 
These are scenarios and schedules and possibilities and 
options. But none of this could ever, ever happen unless it 
would be negotiated, bilateral, and verifiable. That was part 
of a letter that the Global Zero growth group sent to the 
President in 2009 specifically stating that.
    If I might give you a more recent example of that. Senator 
Feinstein's subcommittee----
    Senator Fischer. Just a quick one, please.
    Senator Hagel.--had a hearing on this last year. In that 
hearing, and the committee can get the transcript if it doesn't 
have it, General Cartwright and Ambassador Pickering testified. 
They went into this, that this is all, everything with any 
action we would take would have to be negotiated. It would have 
to be bilateral. No unilateral action.
    They made that point again on the record in front of 
Senator Feinstein's subcommittee. I support that. I agree with 
that.
    Senator Fischer. I have another statement from the report. 
The U.S. ICBM rapid reaction posture remains in operation and 
runs a real risk of accidental or mistaken launch.
    I think that statement is pretty clear. Do you agree with 
that?
    Senator Hagel. Yes. I mean, I think accidental launches and 
those kinds of things are always to be concerned about. We need 
to assure, as we have over the years, that that doesn't happen, 
both on the Russian side----
    Senator Fischer. That we run a real risk of accidental or 
mistaken launch?
    Senator Hagel. Well, you take ``real'' out. You could just 
put risk. But there is always a risk. I mean, when we are 
talking about nuclear weapons and the consequences, you don't 
get a lot of second chances. We need to be very sure about 
these things, and I think that was the whole point.
    Chairman Levin. I think you need to save any additional 
questions for the second round, if you would today.
    Senator Fischer. Oh, I am sorry. Thank you.
    Chairman Levin. You may not have gotten a card. I am sorry 
if you didn't.
    Senator Fischer. Oh, thank you very much.
    Chairman Levin. Thank you.
    Senator Fischer. Thank you, Senator.
    Senator Hagel. Thank you, Senator.
    Chairman Levin. Thank you very much, Senator Fischer.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you, Senator Hagel, for testifying today.
    I appreciate that you have brought your family with you. I 
appreciate the support of your wife.
    I am going to submit several questions for the record 
because they are important to me as the Senator from New York, 
particularly about New York bases, cybersecurity, and children 
of military families with disabilities. But today, I want to 
focus on the most urgent issues from my perspective. I want to 
talk more about your thoughts on Israel and Israel's security. 
I want to talk about Afghanistan, and I want to talk about 
personnel issues.
    On Israel. Obviously, our relationship with Israel is 
tremendously important to Israel, and we are fundamentally tied 
to them because of being such a strong democracy in the Middle 
East and having our national securities very much being tied in 
many ways.
    We talked quite a bit about Iran, and you have clarified 
your position that containment is not an option. I am concerned 
about a statement you said with regard to Iran. A nuclear Iran 
is an existential threat to the United States, as well as 
Israel. The Iranian Government has been responsible for the 
deaths of U.S. servicemembers, an attempted attack on U.S. 
soil, and the funding, training of terrorist groups.
    Their latest in a long list of direct threats to Israel 
came just today. I want to make sure that in your statement 
earlier today with regard to whether Iran is legitimate, I can 
understand if you meant it is a legal entity that has 
international relations and has diplomatic relations and is a 
member of the U.N. But I do not see Iran or the Iranian 
Government as a legitimate government, and I would like your 
thoughts on that.
    Senator Hagel. Thank you, Senator.
    What I meant to say, should have said, it is recognizable. 
It has been recognized, is recognized at the United Nations. 
Most of our allies have embassies there. That is what I should 
have said, and thank you.
    Senator Gillibrand. You are welcome.
    With regard to Israel, Israel's security is very important, 
and I have been one of the strongest advocates for our 
alliance, fighting for more increases in missile defense 
cooperation as well as coordination on a number of the 
technology programs that are fundamental to Israel's security.
    Last year, Iron Dome more than proved itself as missiles 
from Gaza continually headed towards Israel. In December, 
Ranking Member Inhofe and I successfully pushed for full 
funding of the U.S.-Israel cooperative missile defense systems.
    Will you personally support robust funding for Iron Dome, 
David's Sling, and other programs? If we have to have a 
Continuing Resolution, the funding for Iron Dome will be well 
below the authorized amount for fiscal year 2013. In such a 
case, will you recommend either reprogramming other funds or 
sending forth an anomaly budget requesting to fully cover our 
commitment to this program?
    Senator Hagel. First, I fully support and will continue to 
fully support Iron Dome and Arrow and David's Sling. As to a 
commitment to the second part of your question, I would have to 
better understand what our restrictions are going to be in our 
budgets before I could make any decisions like that, and I 
would have to talk with our Chairman of the Joint Chiefs and 
each of the chiefs and want to better understand, depending on 
how bad and deep this sequestration might get.
    But make no mistake. It is clearly a priority program. I 
believe we will continue to fund it. We should. I will support 
the continuing funding.
    Senator Gillibrand. I hope you will also be a strong 
advocate because our budget is, even under sequestration, 
significant. This is a very high priority certainly for me.
    Senator Hagel. If I am confirmed, we will work together, as 
I will with this committee, on this and other issues.
    Senator Gillibrand. Thank you.
    A number of members were just in Egypt, and we met with 
President Morsi. Obviously, we are very concerned about the 
Sinai becoming a route for arms coming straight from Libya 
going to terrorist groups. We, obviously, are very concerned 
about we give $1.2 billion to Egypt in aid, and we want to 
figure out if there is a way to put some of those funds towards 
more anti-terrorism missions as opposed to the typical 
technology.
    Do you have any thoughts on that and what we can do to 
really try to assist in cracking down on the weapons trade?
    Senator Hagel. It is a huge challenge and part of obviously 
what allows terrorists, extremists to advance their cause. 
Maritime security, piracy issues, I mentioned in my opening 
statement that is all part of why we need to rebalance 
resources and why we need the kind of flexible, agile resource 
base--in particular our Navy--to be able to do this.
    It also is going to continue to take cooperation with our 
allies. We can't do this alone. As good as our intelligence is, 
the best in the world, best military in the world, we are the 
largest, wealthiest country in the world. But we have to work 
with allies, and we have to find that through intelligence 
before it gets beyond the capacity to be used to do damage 
against the interests of this country and our allies.
    Senator Gillibrand. As Israel is one of our most important 
allies, one of the growing risks we have now is Syria, 
particularly chemical weapons being not properly locked down. 
There is concern, and obviously with what happened yesterday, I 
suspect that there has been very close cooperation between our 
militaries on contingency plans with respect to Syria's 
chemical weapons. But will this be something that you can focus 
your concern on because of your past statements about the 
Israel-Hezbollah war in 2006?
    Is this something that you will also commit to and keeping 
this alliance strong and making sure we have a strong 
contingency plan with regard to any chemical weapons coming out 
of Syria?
    Senator Hagel. Yes. By the way, I have said on the record 
many times that Hezbollah and Hamas are terrorist groups, and I 
have said many times on the record that Iran is a state sponsor 
of terrorism. So, yes, I am committed to do that and will do 
that.
    Senator Gillibrand. Okay. For my last minute, with regard 
to Afghanistan, we have heard your views, and you didn't give a 
specific statement about how many troops when. But will you, in 
your capacity as Secretary of Defense, advise the President 
that we should be drawing down troops sooner rather than later?
    Senator Hagel. I think he has made that pretty clear that 
he wants to do that. If I am confirmed, I will need to better 
understand all the dimensions of this. I don't know all those 
dimensions. I think that there is little question that--and I 
support completely where the President wants to go in 
Afghanistan and his commitment to unwind that war.
    As we have said, there should be, there will be. He has 
noted that he will, in fact, enforce a new policy and new 
relationship based on a limited objective for our troops there, 
and I support that.
    Senator Gillibrand. My last question that I will submit 
more for the record, but you and I talked at length about it. 
Obviously, the personnel of our military is our most important 
asset, and when we hear reports that there are upwards of 
19,000 sexual assaults in the military against women, it is 
unacceptable.
    We also have finally repealed ``Don't Ask, Don't Tell''. 
But it is difficult for a military spouse to even go to the 
commissary and be on base or be notified if a spouse is killed 
in action. I will need a strong commitment from you that you 
will treat our military families and look after them in the way 
you would look after your own.
    I want you to be concerned about every man and woman in the 
military, that their well-being is being looked after, and see 
real advocacy and leadership. Not status quo. Not implementing 
whatever we put forward. But actually fighting for them every 
single day.
    Senator Hagel. You have my complete commitment on that. I 
have made that commitment to, I think, all members of the 
committee that I have spoken to directly and privately.
    Again, I mentioned that point in my opening statement, you 
will recall. I think I have a pretty clear record on that in my 
life. I will continue to do that, will do that, and I agree it 
is not good enough just to say zero tolerance. The whole chain 
of command needs to be accountable for this, all the way down 
to the bottom. So I will.
    Senator Gillibrand. Thank you.
    Senator Hagel. Thank you.
    Chairman Levin. Thank you, Senator Gillibrand.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Senator Hagel, congratulations on your appointment. You are 
a good, honest man, and I really appreciate your willingness to 
serve the country in the past and be willing to do so in the 
future.
    What percentage of the gross domestic product do we spend 
on defense?
    Senator Hagel. We are, I think, it is probably 5 percent 
now in that area in our budget, our discretionary budget----
    Senator Graham. Is that historically high or low?
    Senator Hagel. I think generally depends on real dollars 
and wars, but--
    Senator Graham. Are we at war?
    Senator Hagel. We are at war in Afghanistan. We are at war 
around the world with active threat----
    Senator Graham. So you agree with me we are at war in 
Afghanistan? We are at war around the world. So when you look 
at spending on defense, every Senator should be aware of the 
fact we are still at war. Do you agree with that?
    Senator Hagel. I am sorry. What is your question?
    Senator Graham. Do you agree that every Senator, every 
Member of Congress should be wide-eyed and understanding that 
when you vote on a defense budget we are at war?
    Senator Hagel. Yes, I do.
    Senator Graham. Okay. Thank you.
    Now let us talk a little bit about statements you made. You 
have explained this a bit. You said, ``The Jewish lobby 
intimidates a lot of people up here. I am not an Israeli 
senator. I am a U.S. Senator. This pressure makes us do dumb 
things at times.''
    You have said the Jewish lobby should not have been--that 
term shouldn't have been used. It should have been some other 
term. Name one person, in your opinion, who is intimidated by 
the Israeli lobby in the U.S. Senate.
    Senator Hagel. Well, first----
    Senator Graham. Name one.
    Senator Hagel. I don't know.
    Senator Graham. Well, why would you say it?
    Senator Hagel. I didn't have in mind a specific----
    Senator Graham. First, do you agree it is a provocative 
statement? That I can't think of a more provocative thing to 
say about the relationship between the United States and Israel 
and the Senate or Congress than what you said.
    Name one dumb thing we have been goaded into doing because 
of the pressure from the Israeli or Jewish lobby.
    Senator Hagel. I have already stated that I regret the 
terminology I used.
    Senator Graham. But you said back then it makes us do dumb 
things. You can't name one Senator intimidated. Now give me one 
example of the dumb things that we are pressured to do up here.
    Senator Hagel. We were talking in that interview about the 
Middle East, about positions, about Israel. That is what I was 
referring to.
    Senator Graham. So give me an example of where we have been 
intimidated by the Israeli/Jewish lobby to do something dumb 
regarding the Mideast, Israel, or anywhere else.
    Senator Hagel. Well, I can't give you an example.
    Senator Graham. Thank you.
    Do you agree with me you shouldn't have said something like 
that?
    Senator Hagel. Yes, I do. I have already said that.
    Senator Graham. Now do you agree with me that Hezbollah is 
a terrorist organization?
    Senator Hagel. Yes.
    Senator Graham. Now, in 2006, you were 1 of 12 Senators who 
refused to sign the letter to the EU asking them to designate 
Hezbollah as a terrorist organization for the purposes of the 
EU sanctioning Hezbollah. Why were you 1 of 12 who refused to 
sign that letter?
    Senator Hagel. Because I have generally had a policy during 
my time in the Senate that I didn't think it was the right 
approach for the Congress of the United States to be sending 
leaders any instructions or any documents versus letting our 
President do that. As I have already stated----
    Senator Graham. Why did you sign the letter to Bill 
Clinton, urging him to deal with the Russians when it comes to 
their policy against Jewish people?
    Senator Hagel. Because I think that is the appropriate 
approach because I think it is our President who conducts 
foreign policy.
    Senator Graham. All I could suggest to you is that when a 
letter is presented to a U.S. Senator about the times in which 
we live in, you can't write one letter and not write the other 
and, in my view, be consistent.
    The letter was urging the EU to impose sanctions on 
Hezbollah, and you have been a big believer that we shouldn't 
go it alone. We shouldn't do it unilaterally. Why in the world 
wouldn't you take this chance to urge the EU to go ahead and 
sanction Hezbollah because it may help the world at large deal 
with this terrorist organization? Your answer is you just don't 
think we should be writing letters?
    Senator Hagel. That wasn't my answer. My answer was I think 
the President of the United States is the appropriate 
official----
    Senator Graham. So Congress has no interest at all in 
whether or not the EU would designate Hezbollah as a terrorist 
organization? Do you think that is our role up here, that we 
should just stay out of those things?
    Senator Hagel. Congress has an interest and responsibility 
in all things. But I----
    Senator Graham. Okay. I got you. Apparently not there.
    Now let me ask you this about the Iranian Revolutionary 
Guard. You said just a minute ago you think they are a 
terrorist organization. Do you agree with that?
    Senator Hagel. Yes.
    Senator Graham. Okay. You voted against the amendment 
designating them a terrorist organization because you thought 
we would be going down the wrong road by doing that because 
they are a recognized state. Iran, you wouldn't want to 
designate the army of a recognized state as a terrorist 
organization?
    Senator Hagel. I said that Iran is a state sponsor of 
terrorism. I also just clarified a statement on Iran being a 
recognized nation by the United Nations, by most world bodies. 
The reason again, I will explain it again, why I did not vote, 
as 22 other members did----
    Senator Graham. Right.
    Senator Hagel.--because I think Jim Webb's argument was a 
strong argument, and that was we have never--this is what he 
said on the floor--designated part of a government as a 
terrorist organization. Thereby what his concern was, as was 
mine and other Senators who voted against it, would this be 
then tantamount to giving the President of the United States 
authority from Congress to take military action against Iran?
    Senator Graham. I got you. Now let me just ask you this. Do 
you believe that the sum total of all of your votes--refusing 
to sign a letter to the EU asking Hezbollah to be designated a 
terrorist organization, being 1 of 22 to not vote to designate 
the Iranian Revolutionary Guard a terrorist organization, being 
one of two on two occasions to vote against sanctions that this 
body was trying to impose on Iran, the statements you have made 
about Palestinians and about the Jewish lobby--all that 
together, that the image you have created is one of sending the 
worst possible signal to our enemies and friends at one of the 
most critical times in world history?
    Senator Hagel. No, I would not agree with that because I 
have taken actions and made statements very clear as to what I 
believed Hezbollah and Hamas are as terrorist organizations. In 
fact, Senator----
    Senator Graham. If you there was a vote on the floor of the 
Senate this afternoon to label the Iranian Revolutionary Guard, 
the people who have killed our soldiers in Iraq, some of the 
most vicious people to the people of Iran themselves, if there 
were a vote tomorrow or this afternoon or after lunch, would 
you still vote no?
    Senator Hagel. Well, I would want to know from the 
President what they were doing, but again----
    Senator Graham. I mean, you read the paper. You watch TV. 
You have any doubt what they are doing? They are expanding 
terrorism. They are trying to intimidate their own people. They 
are the instrument of the theocracy to oppress their own 
people, and they are the biggest supporter of the regime 
keeping them in power so then they can get a nuclear weapon.
    If you had a chance tomorrow, today, after lunch to vote to 
say that the Iranian Revolutionary Guard was a terrorist 
organization, would you still vote no?
    Senator Hagel. Well, the reason I voted no to start with 
began with the same----
    Senator Graham. Well, I know why. You told me that. My 
question is----
    Senator Hagel. That hasn't changed.
    Senator Graham.--would you reconsider, and would you vote 
yes this time, or would you still vote no?
    Senator Hagel. Well, times change. I recognize that, and 
yes, I would reconsider. But the whole theory----
    Senator Graham. Well, thank you. That is encouraging.
    My time is up, but we will have another round.
    Senator Inhofe said that you were one of four Senators who 
refused to sign a letter in October. The first paragraph says, 
``We write to you to express our solidarity with the State of 
Israel at this moment of crisis and our profound disappointment 
and frustration with Palestine Liberation Organization Chairman 
Arafat and the Palestinian Authority. We are dismayed that they 
would allow violence by Palestinians to be carried out without 
restraint or comment.''
    This was when the Intifada was being raging, and Senator 
Inhofe, led by Daschle and Lott, wanted a letter from every 
member of this body to clearly put us on record that we believe 
Arafat and the Intifada is undercutting the agreements they had 
reached and that they had resorted to violence to intimidate 
the Israeli Government and people in a way that was just 
absolutely unacceptable.
    If you had a chance to do it over, would you sign this 
letter now? I am going to give it to you during whatever break 
we have and ask you to reconsider. I would ask you, Senator 
Hagel, to tell the country, the world at large, particularly 
the State of Israel, you made a mistake by not signing that 
letter.
    Senator Hagel. Who is the letter to?
    Senator Graham. I think it goes to the President. Is that 
who it was to? It was the President.
    Senator Hagel. I will look at it. I don't recall the 
letter, and I will look at it and give you an answer.
    Senator Graham. All I can say, it was a very big deal at a 
very important time. The lack of signature by you runs chills 
up my spine because I can't imagine not signing a letter like 
that at a time when it really mattered.
    We will continue this conversation. Thank you.
    [The information referred to follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      The four Senators who did not sign this letter are:

          Spencer Abraham, R-MI
          Robert Byrd, D-WV
          Judd Gregg, R-NH
          Chuck Hagel, R-NE

    Chairman Levin. Thank you, Senator Graham.
    We now will go to Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to join, Senator Hagel, in thanking you for your 
service, thanking your family, and expressing appreciation not 
only to you for your service in uniform, but also afterward to 
our veterans, which people may not appreciate as much as they 
do your military service, but I think is every bit as important 
to our Nation.
    I just want to say about that letter, I wasn't here when 
the letter was circulated. I would have signed it, but I would 
certainly join in urging that you reconsider and commit to the 
statement of support in the letter for the State of Israel. If 
it is appropriate now and applicable to today's events, I hope 
you will consider expressing your support for it.
    I noted in your opening statement that no single quote and 
no single vote define you in the entirety, and perhaps not as a 
whole, but votes and quotes do matter. I think that the 
questions about what you have said and what you have done in 
the past are entirely appropriate, and I think also 
reconsidering or your views evolving is also appropriate.
    I am going to be submitting questions on some of the topics 
that you have heard. You and I have discussed some of these 
questions. I might say your private meetings with members of 
this body have been very productive and effective, as you have 
seen in some of the comments that have been expressed here. So, 
the more we hear from you, I think the better you do on many of 
these issues.
    I want to begin by talking about one issue that concerns 
our veterans, and particularly our Vietnam veterans. Many 
Vietnam veterans in Connecticut and around the country received 
less than honorable discharge as a result of conduct that was a 
direct consequence of post-traumatic stress (PTS), at a time 
PTS was not a term, not diagnosed, not treated.
    But they have to live with the consequences of a less than 
honorable discharge. They have to live with fewer benefits 
often. I would like a commitment from you that DOD will 
reevaluate and revisit perhaps some of those individual cases 
as well as its general policies to take account of the fact 
that we now know that many of those veterans during the Vietnam 
era suffered from PTS or related kinds of injuries.
    Senator Hagel. You have my commitment to do everything I 
can about that. I understand the issue pretty well, been 
working on this issue long before I actually ever got to the 
Senate. So I will.
    Thank you.
    Senator Blumenthal. Thank you.
    I would like the same kind of commitment that you have 
expressed very persuasively on the repeal of ``Don't Ask, Don't 
Tell'' on the issue of sexual assaults. This issue bedevils the 
military. I don't know whether you have seen an excellent 
documentary called ``The Invisible War''?
    Senator Hagel. Yes.
    Senator Blumenthal. I know you are familiar with this 
issue. I commend you for what you have said to me privately, 
and I would ask that your commitment not only to the 
prosecution and holding accountable people who are involved in 
this criminal conduct, but also to the victims so that they 
receive the kind of services that in the civilian world many of 
them do through victim's advocates in the courts and similar 
kinds of roles played.
    So both to prosecution--effective, vigorous, zealous--but 
also to protection of the victims. Can you commit to that?
    Senator Hagel. Absolutely, I will commit to that, yes.
    Senator Blumenthal. Thank you.
    Senator Hagel. Thank you.
    Senator Blumenthal. On the strategic issues, I wonder if I 
could talk to you for a moment about submarines, which you and 
I discussed privately briefly. DOD, the Joint Chiefs, and the 
President have all committed to an Ohio-class replacement 
program that consists of a fleet of 12, starting no later than 
2031.
    The Global Zero report settled on a lower number, 10. I 
strongly believe that the cost will increase, the cost per 
submarine, and that we will be at severe risk, for reasons that 
you may well understand, although we can't really discuss them 
in detail here because I think they may be classified. I would 
like a commitment that you are committed as well to a fleet of 
12 Ohio-class replacement submarines.
    Senator Hagel. On that issue, I would want to talk with our 
Chief of Naval Operations to get a better understanding of our 
budget. I can tell you this. I am committed completely to 
modernizing our Navy and everything it includes and will 
require. I will give you that commitment.
    Senator Blumenthal. I am sure you know that the Ohio-class 
replacement program is really the cornerstone of our nuclear 
deterrence.
    Senator Hagel. I do.
    Senator Blumenthal. Vital to our national security, but it 
requires clear leadership and support from the next Secretary 
of Defense. I hope you will perhaps come back to us on that 
issue.
    Senator Hagel. I will. You and I will be discussing this, I 
am sure, many times if I am confirmed. So thank you.
    Senator Blumenthal. Thank you.
    Going to the Virginia-class submarines, the next multiyear 
purchase, known as Block IV, envisions 10 submarines. There is 
a threat that it could be reduced to nine. For reasons related 
to both cost and national security, I think that number should 
be 10.
    The intent and spirit of the last NDAA was that it should 
be 10, and I would like to ask you, similarly, for your 
commitment that there will be 2 submarines for 2014 and that 
the program continues to be viable at the level of 10.
    Senator Hagel. Senator, I will commit to what we have 
committed to carry out what we need to fund and develop and 
build in order to maintain the kind of modern Navy we are going 
to require. Those submarines, as you note, are cornerstones to 
that security.
    Senator Blumenthal. They are absolutely vital cornerstones, 
essential building blocks to our national security as we move 
to the Pacific-Asia theater and seek to advance our interests 
there. They have the intelligence, reconnaissance, and 
surveillance capability as well as, as you well know, 
counterterrorism, the importance. I hope that that effort will 
continue, and I appreciate your commitment.
    Let me just finish with a question that I think goes back 
to the contracting area where you were asked questions before. 
Senator Ayotte and I, in a trip led by Senator McCain, recently 
visited Afghanistan and were briefed--and I am going to try to 
make this question brief--about the continuing corruption in 
the Afghanistan Government. Deeply troubling and even shocking.
    But equally so is the waste of American taxpayer dollars in 
part because of the procedural roadblock to enforcement of 
section 841. I am not going to quiz you on 841. So you can take 
a deep breath there. But 841 is designed to protect American 
tax dollars from corrupt contracts that, in fact, go to benefit 
the enemy.
    We are working revisions that will make more effective the 
procedures for terminating those contracts, getting back 
American dollars, extending those protections to nondefense 
dollars, and I hope that we can have your commitment as well to 
work with us on that area.
    Senator Hagel. You have my commitment, and I will 
enthusiastically work with you on this area.
    Senator Blumenthal. Thank you.
    Senator Hagel. Thank you.
    Senator Blumenthal. I appreciate your frank and forthright 
answers, and I don't know whether I will be here for the second 
round of questioning, but I want to express my sincere 
gratitude to you for your willingness to serve and your 
patience and forthrightness in answering all our questions.
    Thank you.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Senator Hagel, thank you for being here today. Thank you 
for your service to the country in so many ways and your 
willingness to serve again. To see your wife and your brothers 
there behind you is an indication of the family commitment as 
well as your personal commitment.
    There are several things that I may get to in a second 
round on Iran and sanctions. I was very involved in that 
unilateral sanctions effort when I was in the House of 
Representatives. We drafted some of that legislation in my 
office when I was in the House.
    Our relationship with Israel is of great concern to me, and 
it is a priority to our efforts in the Middle East. I think 
that is largely exhausted in this first round, at least from my 
point of view. I may want to come back to some of it later.
    I want to talk a little bit about the ongoing structure of 
the force. The Wall Street Journal in an editorial today said 
that the current American military was the smallest, least 
modern, and least battle-ready in recent memory.
    I don't think that means we are not maybe more modern than 
anybody else in the world or more battle ready than anybody 
else in the world. But I think that is a recognition that our 
investment and the way we have used those resources has gotten 
them in a position where we maybe need to be more focused on 
rebuilding than we do building down.
    Secretary Panetta has been very forthcoming in his comments 
about the sort of across-the-board cutting approach of 
sequestration. What do we do to get our worn-out equipment and 
our worn-out personnel in a better position a year from now 
than they are right now? Your brief strategic view of that 
because I don't have very much time here.
    Senator Hagel. Yes. Senator, you have just identified one 
of the priorities of the next few years at DOD. Resetting 
equipment and essentially reshaping our force structure, but 
also renewing our force structure.
    The fact is we have been at war for 12 years. Every Senator 
here knows and you have constituents that we keep sending these 
kids back and back and back to two wars. Of course, there is 
going to be a consequence. Something is going to break down, 
not only your equipment, but your manpower. You can't keep 
doing that.
    So that is going to be an overall challenge, Senator, that 
is going to take as much of my time, if I am confirmed, as 
anything, as it will our Chiefs. Our Chiefs know this better 
than anyone, as we structure, rebalance, renew, and re-outfit.
    We have, I believe, a force structure that is as capable as 
ever. I don't accept that our force structure is somehow behind 
or not modern or not capable. I don't think that is true.
    Senator Blunt. I think the point that the editorial was 
making was not that we were behind, but we are not at the quite 
as far on the cutting edge as we may have been. I would hope 
you and I would both want to see us get there.
    Senator Hagel. Yes.
    Senator Blunt. Let me ask a question about that. Secretary 
Gates said recently that one of his big concerns was that we 
repeat the mistakes of what I think he referred to as a 
``procurement holiday'' that we took in the 1970s and then, to 
some extent, again in the 1990s. We spent a lot of time in the 
10 years after that trying to get built back up to where we had 
hoped to be.
    How, in these discussions of cutting, do we keep the lines 
open, do we keep our effort ongoing? One of the things that I 
know quite a bit about is the F-18 line because it is in St. 
Louis, MO, where Boeing Military is. I do know that if you ever 
close that line down, we are always talking about, well, what 
other country needs some version of this, and how do we keep 
our capacity at a time when there is this talk about cutting 
and not just cutting, but sort of cutting everything a little 
bit, which means that some of the things that get cut a little 
bit I think disappear because they can't survive if they are 
only partly there.
    Senator Hagel. Senator, you have just again identified one 
of the great challenges that lies ahead, and that is 
maintaining our industrial base. You use the F-18.
    Senator Blunt. There are lots of other lines. That just 
happens to be the one I have been on the most times.
    Senator Hagel. No, I understand. But that is a good example 
of what we are going to have to continue to keep strong.
    The reality is, as you say, because we know what we have to 
deal with, what our budgets are as a result of the Budget Act 
of 2011. What we don't know brings us back to the uncertainty 
of sequestration. Some of the examples you are using are good 
examples of areas that will and can be, could be cut 
arbitrarily in order to fulfill budget requirements.
    I think what you have just noted again is going to be a 
huge part of keeping our technological superiority, our edge. 
Senator Blumenthal mentioned submarines. That is another 
component of this. All the superior technical edge this country 
has possessed since World War II has kept us, along with other 
things and for other reasons, the strongest military power in 
the history of man. That must be maintained.
    Threats change. Cyber is a good example. I mean, 10 years 
ago, nobody had any idea what we were talking about, cyber. 
Even 5 years ago. We have to adjust to that challenge, that 
reality.
    Senator Blunt. Let me see if I can----
    Senator Hagel. The core base, though, Senator, is exactly 
right, and we have to protect that.
    Senator Blunt. We do. We have made efforts with our allies 
and friends to give them some other version of equipment we 
had, maybe not quite as good as we had, but something that 
keeps our defense procurement lines in place so that when we do 
need them, they are still there. That is critically important.
    Before you were designated Secretary of Defense, as the 
potential nominee for this job, in talking about sequestration, 
you made a comment about there is lots of bloat--I am sure you 
have talked about this comment quite a bit and are very 
familiar with it, more than you were before you made it 
probably--in the Pentagon. What do you have in mind there?
    What is being done at the Pentagon that could maybe better 
be done somewhere else or is being duplicated somewhere else? I 
think in some of the follow-up of that, I saw you mentioned 
things that should be in the State Department have gotten over 
to the Pentagon. Are there examples of that that we can work on 
and you will want to lead on?
    Senator Hagel. Two things. First, that comment came in a 
large, extended interview about budgets about everything, and 
that interview was done in 2011 prior to the Budget Control 
Act, just to get the timeframe right on that. I never supported 
sequestration, by the way.
    Now, to your question about what we could do. Obviously, 
much of the conversation here in the last few hours has been 
about acquisition, about waste, fraud, and abuse, billions of 
dollars. Why aren't we auditing these programs? Where is the 
accountability? That is certainly an area that we are going to 
have to take a look at.
    My reference to State Department programs, some of the 
general areas, I mentioned this this morning--where we have 
pushed down on the military the last 12 years to do things that 
usually are done out of State Department, aid type programs and 
exchange programs, helping civilian type programs in areas. 
That was all given to the--not all, but a great deal of it was 
given to the military at the time we were at war in Iraq and 
Afghanistan.
    So the military has taken on a tremendous volume of 
assignments and funding that goes with that. That needs to be 
sorted through, I think. Those are areas where I think we----
    Senator Blunt. One of your commitments will be to help us 
sort through that?
    Senator Hagel. It has to be, Senator. It has to be.
    Senator Blunt. I am out of time, Senator. I will be here 
for the second round.
    Senator Hagel. Thank you.
    Chairman Levin. Thank you, Senator Blunt.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman and Mr. Ranking 
Member. It is an honor to be part of this committee. I look 
forward to working with my colleagues, and I am proud to serve 
the people of Indiana.
    We are the heartland of America, and Senator Hagel, we have 
over 14,000 members of the National Guard. In our State, we 
have the fourth-largest contingent of National Guard members in 
the entire country. I want to thank you for your service to the 
country, you along with all Vietnam veterans and other 
veterans, for what you have done for our Nation. I appreciate 
your taking the time to meet with me.
    We had an extensive discussion, and your understanding of 
the complex challenges we face in the Middle East and the 
importance of our alliance with Israel. It is a special and 
historic relationship. I believe it is a special and historic 
relationship. The people of my State believe that as well.
    I think it was important for you to let everyone know that 
there can be no nuclear Iran, that there are lines that cannot 
be crossed, and we will stand up and defend our friends and the 
entire world in that area.
    When we were together, I mentioned to you about my visit to 
Crane Naval Warfare Systems in Indiana. What they do is they 
work to create the technologies to control the spectrum, in 
effect, try to win the battlefield before the battle ever 
starts on the ground.
    We were wondering what can be done in this time of 
challenging budgets to ensure that in the area of technology, 
in the area of spectrum, we can maintain our budget so that, as 
I said, before the war is ever started on the ground, we have 
won it on the spectrum level? How critical is that in terms of 
your planning in the Defense Department?
    Senator Hagel. Senator, I think that focus is on as much 
the core challenge that the Pentagon has in front of it as any 
one thing. This committee is going to be particularly important 
to help the leaders of the Pentagon sort through that because, 
as evidenced in the whole series of questions that have been 
asked today, Senator Blunt's most recent questions, this is a 
time of priorities.
    Budgets drive that, but missions should always drive 
everything. What are going to be our missions in the Defense 
Department over the next few years? How are we going to 
resource those missions? What are the priorities going to be? 
It is the entire universe of what the responsibilities are and 
how do we carry those responsibilities out to secure this 
Nation?
    Your general questions and most of the questions asked here 
today have been about this. Until I would get over to the 
Pentagon, if I am confirmed, and understand more of the 
specifics and work with the Chiefs and get a better grasp of 
exactly what we have, I won't be in a position to be able to 
say this or this or we will do this or we won't.
    Obviously, that is why I say this committee, the 
authorizing committees are going to be particularly important.
    Senator Donnelly. My next question probably ties into that 
as well, which is, as I mentioned, we have over 14,000 members 
of the Guard in our State, Army Reserves. They have done tour 
after tour after tour in Iraq and in Afghanistan. As we wind 
down, I think it is critical to make sure that we have a 
strategic plan for the Guard in the future so that the Guard we 
have today, equipment-wise, it is struggling on equipment. We 
have to upgrade not only our vehicles, but in other areas as 
well.
    I guess the question is, how do you view the mission of the 
Guard in the years ahead?
    Senator Hagel. During our conversation and a couple of the 
questions I have had here today on the Guard, I have said I am 
committed to a strong National Guard. It is an essential part 
of our force structure going into the future. I think it was 
proven quite clearly and effectively the last 12 years.
    That will be maintained. I think further evidence of that, 
putting a Chief of the National Guard into the Joint Chiefs. 
You have my commitment that I will be continually focused on 
that integration and the upgrading in every way.
    Senator Donnelly. I have had the privilege of working with 
General Shinseki in recent years on veterans issues, but I 
think back to when he testified regarding Iraq and talked about 
how many troops he thought were needed and all the 
repercussions that came out of that not only for the general, 
but in so many ways.
    I think it is critical that the generals and the people in 
the Pentagon provide you with the most unvarnished information 
possible. They tell you exactly what they think. You tell them 
exactly what you think, and that nobody at any time has their 
career affected for telling you the truth. I want to make sure 
that is the way that you are approaching this as well.
    Senator Hagel. That is the way I would approach it. I value 
that. There is no other way to assure that we are getting the 
best, the most honest advice from our most capable leaders than 
to say it like that.
    The General Shinseki episode was a very unfortunate episode 
in this country, what happened to him for telling the truth. I 
will assure this committee that if I am Secretary of Defense 
that kind of thing will never happen, for a general officer, a 
senior commander to be handled and treated that way when he 
told the truth to the Congress of the United States.
    Senator Donnelly. I will say, and I know you know this, the 
job he has done for veterans as the VA Secretary has been 
extraordinary.
    Another area in regards to not only our veterans, which we 
are challenged with right now, but also on Active Duty, is the 
suicide rate. It has been heartbreaking. In 2012, we lost more 
Active Duty members to suicide than we did in fighting in 
Afghanistan.
    I know General Chiarelli has at this point basically 
dedicated his life to trying to solve this problem. I want to 
make sure that the Defense Department is going to lean all in 
to try to fix this and provide the care and help and answers so 
that that number goes to zero in the years ahead.
    Senator Hagel. You have my complete commitment on this 
issue.
    Senator Donnelly. It is something that our veterans then 
face as well. It is also a transition issue that as much as you 
can work with the VA, as our Active Duties transition out and 
our National Guard when they go home, that they have somebody 
to talk to, somebody to tell how they feel, and somebody who 
understands what they are going through because if we can help 
with that, they have borne the burden of battle, and we owe 
them. We owe them everything.
    Another question I wanted to ask you about is Pakistan. As 
we know, the incredible challenges we have in Afghanistan, so 
much of it is caused by Pakistan. We spent about or provided 
about $2.5 billion in aid. Do you think those were dollars well 
spent?
    Senator Hagel. Pakistan is a complicated relationship. It 
is a nuclear power. They cooperate with the United States on 
some things. We have difficulties with them on others.
    As to your question on investment in Pakistan, we condition 
that assistance. We must continue to condition that assistance. 
I think Pakistan is too dangerous and that area of the world is 
so clearly in the national security interest of this country 
that we just can't walk away from it and not deal with them.
    It is complicated. It is imperfect. But this is where all 
the levers of influence and relationships and diplomacy and 
economics and power come into play. How we wisely use all of 
those resources is going to determine some of the outcomes.
    We have to be honest as well. We are dealing with factors 
there that we don't agree with, that we have difficulties with. 
But again, we have to continue to work at it, and I believe 
that we will and we should.
    Senator Donnelly. Senator, thank you very much.
    Senator Hagel. Thank you.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Senator Hagel, I want to thank you for being here, and I 
want to begin by thanking you for your honorable service to our 
Nation, for your personal sacrifice that you have put into 
standing and fighting for this country.
    Senator Hagel. Thank you.
    Senator Cruz. I would like to begin by addressing a 
question of process. In your prepared statements today, you 
describe that you have given hundreds of speeches and 
interviews.
    Senator Hagel. Yes.
    Senator Cruz. This committee asked you in this process to 
submit those speeches in the last 5 years, and in response to 
that, you handed over a total of four speeches. In my view, 
that submission was facially insufficient for this committee to 
assess your record.
    Indeed, your financial disclosure revealed you had received 
paid honoraria in the past year for 12 speeches, and yet you 
did not even hand over those speeches for which you were paid 
substantial sums of money. Beyond that, 2 days ago, 6 Senators, 
including Ranking Member Inhofe, sent you a letter asking for 
financial disclosure. You have not chosen to respond to that 
letter.
    That letter in particular asked about the private 
organizations that have paid you over the past 5 years and the 
degree to which any of those funding sources have come from 
foreign countries, foreign nationals, foreign sovereign debt 
funds. You chose not to respond to that letter.
    In my view, unless and until you respond to the requests of 
members of this committee, this committee does not have a 
proper record on which to assess your confirmation, and I think 
we need full disclosure and adequate time to assess that.
    Now I would like to ask initially a point of clarification. 
With respect to the International Criminal Court, do you 
believe the United States should become a party to the 
International Criminal Court?
    Senator Hagel. Senator, may I quickly respond to your first 
comment?
    Senator Cruz. I would like you to answer my question. My 
time is limited.
    Senator Hagel. That question is one that I am most likely 
not going to be dealing with, as Secretary of Defense.
    Senator Cruz. It is a simple question. Do you think we 
should be a member of the International Criminal Court? I am 
asking for your judgment on whether the United States should be 
a party.
    Senator Hagel. I support where the United States is today.
    Senator Cruz. We are not a party today. You think we should 
not be a party. Is that a correct statement of your position?
    Senator Hagel. That is correct, yes.
    Senator Cruz. Okay. Thank you.
    I would like to draw your attention to an interview you did 
in 2009 with Al Jazeera. With the chairman's indulgence, if we 
can play an excerpt of that interview?
    [Video excerpt shown.]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Cruz. Now in that excerpt, Senator Hagel, the 
caller suggests that the Nation of Israel has committed war 
crimes, and your response to that was not to dispute that 
characterization, but indeed to describe what he said as, 
``Well, I think that is exactly right.''
    I would like to ask you, do you think the Nation of Israel 
has committed war crimes?
    Senator Hagel. No, I do not, Senator. I would want to look 
at the full context of the interview. But to answer your 
question, no.
    Senator Cruz. The context of that question, we played the 
entirety of it, and I wanted to give you that context so you 
could hear the question and you can hear your response. I would 
suggest that a suggestion that Israel has committed war crimes 
is particularly offensive, given that the Jewish people 
suffered under the most horrific war crimes in the Holocaust.
    I would also suggest that for the Secretary of Defense or 
prospective Secretary of Defense not to take issue with that 
claim is highly troubling. I would also point out in 2006 your 
characterization of the Nation of Israel's action, and that was 
in a speech on the floor of the Senate, you referred to 
Israel's military campaign against the terrorist group 
Hezbollah as a ``sickening slaughter''.
    Now I would suggest the characterizations, do you think it 
is right that Israel was committing a ``sickening slaughter,'' 
as you said on the floor of the Senate?
    Senator Hagel. Again, I would want to read all of it, what 
I said. First, I have said many, many times, Senator, every 
nation has a right to defend itself.
    Senator Cruz. Do you think a ``sickening slaughter'' would 
constitute a war crime?
    Senator Hagel. No. Depends on were they attacked, depends 
on many factors. If Israel was defending itself, there was 
slaughter going on on both sides.
    Senator Cruz. Does one typically characterize defending 
yourself against terrorism as a ``sickening slaughter''?
    Senator Hagel. No, but again, Senator, I would want to look 
at everything because----
    Senator Cruz. Okay. Let us look at another excerpt from the 
same interview, if we can play the second excerpt?
    [Video excerpt shown.]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Cruz. Senator Hagel, do you think it is appropriate 
for the chief civilian leader of the U.S. military forces to 
agree with the statement that both the perception ``and the 
reality'' is that the United States is ``the world's bully''?
    Senator Hagel. I didn't hear her say that, by the way, of 
the United States, and I think my comment was it is a relevant 
and good observation. I don't think I said that I agree with 
it.
    Senator Cruz. With respect, I think the record speaks for 
itself. It was in writing that she said the United States is 
``the world's bully,'' that it is the reality, and your 
response, you did say you agree with it. You said, ``Her 
observation is a good one. It is relevant. Uh, yes, to her 
question.''
    You explicitly agreed with the characterization of the 
United States as the world's bully, and I would suggest that is 
not a characterization. I think the United States has spilled 
more blood, more treasure standing for freedom, liberating 
people across the world. To go on Al Jazeera, a foreign 
network, broadcasting propaganda to nations that are hostile to 
us and to explicitly agree with the characterization of the 
United States as the world's bully, I would suggest is not the 
conduct one would expect of a Secretary of Defense.
    Senator Hagel. Senator, she said that was an observation.
    Senator Cruz. I will point out that her quote was ``the 
perception and the reality''. With that, my time is expired. I 
look forward to a second round of questioning.
    Chairman Levin. Thank you.
    Now what we are going to do, given the fact that some of 
those tapes there are--they need to be transcribed to be made 
part of the record so that people can judge exactly what was 
said and what was asked. I heard that first question, by the 
way, as a response to the need for moral leadership. I didn't 
hear it the way Senator Cruz did.
    But in any event, it is important that the words be 
transcribed so they can be made part of the record. It is a 
rather unusual thing. I told Senator Cruz that I preferred that 
we have a transcript and that you be asked questions from a 
transcript, but that I didn't want to stop him from offering 
the tape of it, and he went ahead and did it.
    In any event, the fair thing now is that the transcript of 
each of those segments be made part of the record and that we 
give also Senator Hagel an opportunity, should he want either 
on this question or, by the way, on other questions, an 
opportunity to answer for the record in any way he might 
proceed as though he were answering questions for the record.
    Senator Cruz. Thank you, Mr. Chairman.
    We will be happy to provide a transcript, and we will also 
be making public a link both to these excerpts and to the 
entire transcript so that anyone who wants can view it in its 
entirety and assess it in context.
    Chairman Levin. That would be very helpful. Thank you, 
Senator Cruz.
    [The information referred to follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Levin. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman and Ranking Member 
Inhofe.
    I join my colleagues in welcoming you, Senator Hagel.
    We live in a complex world, and any Secretary of Defense 
should ask tough questions, maybe not particularly politically 
popular questions. I see you, Senator Hagel, as that kind of 
person, based on your service to our country, your conduct and 
responses to the questions asked of you today, and the 
conversation that you and I had.
    Turning to your statement this morning, you talked about 
looking at our future threats and challenges and why DOD is 
rebalancing its resources toward the Asia-Pacific region. Of 
course, this kind of rebalance is critically important to 
Hawaii in our forward position in the Pacific.
    Would you expand as to why and what particular economic or 
national security factors come into play as we rebalance to the 
Asia-Pacific region?
    Senator Hagel. Senator, you know better than most your 
region and its importance and why it will continue to be 
important to the world, but certainly to the United States. As 
I noted in my opening statement and you know, we have always 
been a Pacific power. We have been a Pacific power because we 
have clear economic interests there. We have diplomatic 
security interests there. We have strong allies there. I 
mentioned some of them in my opening statement.
    When we look at the growth of economies, we look at trade 
growth, we look at population growth, the rise of China. But 
not just China, but that entire Asia-Pacific region, we need to 
stay relevant to opportunities as well as challenges in all 
areas, but in particular the areas that we see as emerging as 
to the largest, most significant economic security issues and 
challenges and opportunities.
    It is appropriate that any nation rebalance assets. You 
have to be relevant to the times, to the shifts, the changes. 
Our world today is totally different than it was 12 years ago. 
Our force structure is being refit, and we are looking at a far 
more agile, flexible force structure as our economies are 
becoming more agile and flexible.
    For all those reasons and more, that is why we are doing 
what I think is exactly the right thing to do. Doesn't mean, as 
I said in my opening statement, that we are abandoning anybody 
or any part of the world. We can't.
    Senator Hirono. Senator, as we live in times of budget 
constraints, will you commit to keeping me and this committee 
informed as you develop the strategies and contemplate force 
posture adjustments that go along with this kind of 
rebalancing?
    Senator Hagel. Yes. I look forward to it.
    Senator Hirono. I am very heartened by your perspective, 
turning to another question, that you always ask the question, 
is the policy working--worthy of the men and women that we send 
into battle and possibly to their deaths? I am very heartened 
by that kind of a perspective from someone who served our 
country.
    What will be your top priorities as you look to care for 
the men and women in uniform and their families?
    Senator Hagel. As I said in my opening statement, the 
welfare, the safety, the success of our men and women in 
uniform is my top priority, has been and will continue to be, 
and their families.
    Senator Hirono. Do you have any specific programmatic ways 
that you will reflect that?
    Senator Hagel. First, to implement the law. We have a 
number of new laws, policies that are in the process of being 
implemented. We have spoken about some here today. I will 
assure, if confirmed, that we do that.
    As I said in my opening statement, we will assure that 
every military man and woman and their families are given 
exactly the same opportunities and rights as each other and all 
members of the Armed Forces.
    Senator Hirono. I also take to heart your belief in the 
importance of the core nation and the work between DOD and the 
VA, and I understand that you have a strong relationship with 
Secretary Shinseki. With your experience as a veteran and 
having been a senior leader in the Veterans Administration, 
what will be your primary challenges and goals as you look to 
collaborate with Secretary Shinseki and the VA?
    Senator Hagel. It will be the same that Secretary Panetta 
and, before him, Secretary Gates initiated in closer 
collaboration between the two agencies, and that means the 
integration of our systems. As our men and women transition out 
from Active Duty into civilian life or retired life and are 
going to require the assistance of some veterans assistance 
programs, a closer integration.
    We know that the backlogs now are still far, far too long 
to get evaluations of whether it is post-traumatic stress 
disorder (PTSD) or whatever the health issue is. I think 
continuing to work with Secretary Shinseki, as Secretaries 
Panetta and Gates did, but strengthening that integration of 
those systems, of leadership, of our people understanding each 
other better, and maximizing the resources that each agency has 
and making those resources more value-added and count more.
    Senator Hirono. I had an opportunity to meet with Secretary 
Shinseki recently, and those kinds of collaborative efforts are 
not happening as expeditiously as we would like. I certainly 
hope that you will have a renewed sense of urgency about the 
outcomes of these collaborative efforts because, of course, the 
bottom line is it is to help our men and women who are 
transitioning out of uniform into civilian life.
    I hope that we have that kind of commitment, strong 
commitment from you for outcomes.
    Senator Hagel. You have my strong commitment.
    Senator Hirono. DOD is the United States' largest consumer 
of energy, and we talked about that briefly when you came to 
see me. It is clear that the military will benefit greatly from 
cheaper, more stable fuel costs over the long term. Promising 
work is being done in this area to commercialize alternative 
fuels that can be produced abundantly in the United States.
    Of course, this kind of collaboration is very important for 
Hawaii as being the most oil-dependent State in the entire 
country. If confirmed, will you continue to emphasize and 
prioritize research, development, and, where possible, 
deployment of renewable fuels as well as enhanced energy 
efficiency efforts to reduce DOD's energy costs over the long 
term?
    Senator Hagel. Senator, as you have noted, DOD is the 
largest user of certainly liquid fuels. But I think our energy 
budget, I don't know the exact number, but it's probably around 
$18 billion a year.
    Anything we can do to make any aspect of securing our 
country more cost effective fuel, we need to look at, and I 
would make that a high priority, if I am confirmed and go over 
to the Defense Department, to see if we could--how we do that, 
how we can continue to do that, because in the end, for all the 
reasons you know, it is just clearly in the interest of our 
country, our resources, and our people.
    Senator Hirono. Certainly, continuing to fund research and 
development efforts in these areas will accrue to us in the 
long term in terms of huge, huge cost savings for DOD.
    Senator Hagel. Thank you.
    Senator Hirono. Thank you. My time is up.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hirono.
    Now here is the situation we have. This first vote is a 10-
minute vote apparently, and all the subsequent votes are 10 
minutes.
    Senator Lee, I am happy to call upon you now, but you would 
have to kind of keep track of this yourself and have your staff 
keep track of it. If you want to take the risk, there may be 
some risk if you took your full 8 minutes.
    I would be happy to recess now instead of after your 
questions. We are going to recess for the five votes. It will 
be about an hour.
    Would you like to start now and then take a chance that you 
might not finish? Or would you rather start at the beginning 
after an hour recess?
    Senator Lee. Thank you for that offer, Mr. Chairman.
    I better not risk the possibility of missing a vote. I 
would prefer that you recess now.
    Chairman Levin. We are now going to recess for about an 
hour. But I want you all to follow this.
    At the last vote--and it may not be the fifth vote. There 
may be four votes. We don't know. It is up to five votes. The 
final vote, though, we know will be called final passage of the 
debt limit bill. We will start, we will begin about 5 minutes 
after the beginning of that vote.
    We will stand in recess. [Recessed.]
    Chairman Levin. The committee will come back to order.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thank you, Senator Hagel, for joining us today and for 
answering the questions that have been asked to you so far. I'd 
like to talk to you for a few minutes about Israel. Israel is, 
I believe, America's most important ally, certainly in the 
Middle East and in many respects in the entire world. A lot of 
people in this body are concerned, quite appropriately, about 
making sure that alliance remains strong, about making sure 
that our interests as Americans are protected abroad. A lot of 
us feel like one of the best ways of protecting American 
national security is through that alliance in the Middle East.
    On April 12, 2002, there was a Palestinian terrorist who 
detonated a bomb in downtown Jerusalem, killing 6 Israelis and 
wounding I believe about 100 others. On that day, while you 
were still serving in the U.S. Senate, you gave a speech on the 
Senate floor. You made a couple of comments that I'd like to 
discuss with you and ask you a little bit about.
    In one segment of the speech you said: ``We understand 
Israel's right to defend itself. We're committed to that. We've 
helped Israel defend that right. We will continue to do so. But 
it should not be at the expense of the Palestinian people, 
innocent Palestinian people, and innocent Israelis who are 
paying a high price.''
    Some who have read that have reacted with concern that this 
may be indicative of a feeling on your part that there might be 
some moral equivalency between on the one hand Israel's 
exercise of its right to defend itself and on the other hand 
Palestinian terrorism. Do you believe that there is a moral 
equivalency between these two things?
    Senator Hagel. Oh, absolutely not, Senator.
    Senator Lee. Do you understand how others might read this 
statement in such a way that could leave them with that 
impression?
    Senator Hagel. I do.
    Senator Lee. How do you respond to it? In other words, do 
Palestinians, let's say those Palestinians who have engaged in 
acts of terrorism, perhaps in retaliation against Israel for 
Israel defending itself, do they have a legitimate gripe?
    Senator Hagel. Terrorism can never be justified under any 
circumstances.
    Senator Lee. Is their grievance legitimate?
    Senator Hagel. The Palestinians?
    Senator Lee. Yes, the Palestinians who decide to strap a 
bomb onto themselves and detonate it or otherwise engage in 
acts of terror; do they have a legitimate grievance that 
they're expressing?
    Senator Hagel. They have grievances. A lot of people have 
grievances----
    Senator Lee. Are those grievances legitimate?
    Senator Hagel.--but not a justification for terrorism and 
killing innocent people, never.
    Senator Lee. Are they on par with the grievances that 
innocent Israelis have when they become the victims of violent 
acts?
    Senator Hagel. I don't think you can judge whether it's 
Israelis or Palestinians or anybody in the world in separating 
innocent victims of terrorism.
    Senator Lee. I think you can in some circumstances, can't 
you? I mean----
    Senator Hagel. Not victims.
    Senator Lee. For heaven's sakes, though--oh, okay, maybe 
not victims. Can you, and indeed must you not, judge when it 
comes to one group of people who may at least be willing to 
recognize the other group of people's right to exist?
    Senator Hagel. Absolutely. In fact, I'm clearly on the 
record on that point. In fact, in 2006 there was the Anti-
Palestinian Terrorist Act that I voted for, and there are a 
number of other resolutions, acts, votes, speeches I've made. 
In my book I have said unequivocally Hezbollah, Hamas 
specifically, they must renounce terrorism, and first they must 
accept Israel's right to exist as a Jewish homeland, respect 
the borders, protect the borders. Absolutely, I've made that 
very clear.
    Senator Lee. Okay. Now, later on in the same speech you 
asked a question. You referred to the fact, that we really need 
to develop peace in the Middle East, and you asked the 
question: ``Who guarantees this peace?'' You then continue by 
asking another question: ``If in fact we expect Israel to pull 
back to their pre-1967 borders, who guarantees that peace?''
    Does this, Senator Hagel, reflect sentiment on your part 
that that is a legitimate way of solving the peace process, of 
bringing about peace in Israel, in the Middle East, is by 
asking Israel to withdraw to its pre-1967 borders?
    Senator Hagel. No, not at all. What I said was, as you just 
quoted me, who guarantees the security of Israel's borders? 
Israel's borders must be secure. That's part of the 
fundamentals of the Quartet Principles of 2006, in fact, the 
U.N. Resolutions 242 and 337 and other resolutions. That's 
paramount, the guarantee of the security of Israel and its 
borders.
    Senator Lee. I understand that part of the question related 
to how we bring about that peace, and I want to get back to 
that in a minute. But another part of the question started from 
the premise that Israel would be withdrawing to its pre-1967 
borders. Do you view that as a tenable solution? Do you believe 
such borders are militarily defensible?
    Senator Hagel. I think that's all negotiable. The Quartet 
Principles of 2006, which President Bush laid down, and a two-
state solution, all those issues have to be resolved. Land for 
peace, trading land, all those issues are final status issues 
that are absolutely key to the future of Israel or before 
Israel can agree to anything.
    Senator Lee. So you're saying that you might describe a 
resolution of this crisis involving withdrawal to the pre-1967 
borders as perhaps one among several tenable solutions?
    Senator Hagel. It's part of what's been talked about and 
defined in, as I said, the 2006 Quartet Principles and U.N. 
resolutions that that is part of a final status set of issues 
that have to be resolved. The United States and no other 
country can impose that on Israel. That is a negotiable issue, 
but it's been out there, and that remains to be dealt with in 
negotiations.
    Senator Lee. Is it one that you think the United States 
should encourage?
    Senator Hagel. I would encourage peace and a secure, safe 
Israel. That's what I think most of us would want to see.
    Senator Lee. Okay. Now, in 2009 you made a statement 
suggesting that U.S. ground troops should be sent to that part 
of the world and installed as U.N. peacekeepers in a ``non-
militarized Palestinian state''. Is this something you stand 
behind today? Is this an approach that you think is 
appropriate?
    Senator Hagel. Senator, I don't have the facts behind me, 
in front of me, but I don't think that was a recommendation I 
was making. If I recall, my comments--and you may be able to 
give me exactly the comments--were in the context of how do you 
secure Israel's border, who secures Israel's border? For 
example, General Brent Scowcroft has suggested at times maybe 
this is a peacekeeping role for NATO. That was what that was 
all about.
    Senator Lee. Senator, my time has expired. I need to ask 
you one more question. I understand that you have made a 
statement indicating that there is no justification for 
Palestinian suicide bombers, but that there is also no 
justification for Israel to ``keep Palestinians caged up like 
animals''. Did you say that, and if so do you stand by that 
statement today?
    Senator Hagel. I said it, and I don't remember the context 
or when I said it. But----
    Senator Lee. Do you believe today that Israel keeps 
Palestinians caged up like animals?
    Senator Hagel. No. If I had an opportunity to edit that, 
like many things I've said, I would like to go back and change 
the words and the meaning. No, it was I think in a larger 
context. I've said many, many things over many years. It was a 
larger context of the frustration and what's happening, which 
is not in Israel's interest, to find ways that we can help 
bring peace and security to Israel.
    If I had a chance to go back and edit it, I would. I regret 
that I used those words.
    Senator Lee. Thank you.
    Senator Hagel. Thank you.
    Chairman Levin. Thank you very much, Senator Lee.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman, Mr. Ranking Member.
    Welcome, Senator Hagel. It was good to see you with my dear 
friend Senator Warner, decorated Navy and Marine Corps veteran 
from World War II and the Korean War, Secretary of the Navy, 
long-time member of this committee. You couldn't have a better 
ally than Senator Warner and it was good to see him here.
    He exemplifies--and forgive my Virginia-centrism for a 
minute. He exemplifies something that's very important about 
our Commonwealth. Our map is a map of the military history of 
this country: Yorktown, Appomattox, the Pentagon, where 
Setptember 11 occurred. There's a ceremony in Arlington tonight 
for the commissioning of a new amphib, the USS Arlington, that 
will be commissioned in Norfolk in April.
    We care very deeply about these events. One in nine 
Virginians is a veteran. Not one in nine voters, not one in 
nine adults, but birth to death, one in nine is a veteran. When 
you add in Active Duty, Guard, Reserve, DOD civilian, DOD 
contractor, and their families, now you're talking about 
probably one in three of us. We care very, very deeply about 
all that's within DOD.
    Virginians talk all the time about national security 
concerns and threats. Let me be plain, the threat and the 
concern that Virginians are now talking about more than any 
other is the inability of Congress to find a way forward on 
reasonable budget compromise. That's what's in the newspapers, 
that's what's in the headlines.
    At the direction of Deputy Secretary Ash Carter, DOD is now 
cutting expenditures and planning for future cuts. We have a 
looming sequester on March 1 and then a CR expiration on March 
27. I'm very worried at the macro level about DOD's ability to 
pursue and execute appropriate national security objectives in 
this time of congressional inability to find budget compromise.
    The current CR limits flexibility, for example, of the 
military to appropriately tailor resources to the appropriate 
ends under a CR. The Navy has no flexibility to meet a $3.7 
billion operations and maintenance shortfall.
    I'm new here. To me it seems like funding the military 
through CR is poor business, poor budgeting, poor governance. 
I'm worried about its effect upon the morale of all of our men 
and women in service.
    My first question is a really simple one: Do you agree that 
we, Congress, must finish an fiscal year 2013 appropriations 
process as soon as possible to allow DOD to move forward with 
this year's funding decisions, rather than continuing to be 
bound by an fiscal year 2012 CR?
    Senator Hagel. Yes, I do. I think I've been very clear on 
that point all day today. You have described it accurately.
    Senator Kaine. My second question is related, is about 
sequestration. To me, again the new guy, allowing budget 
sequestration--the cavalier discussions I've seen in some 
newspapers recently by Members of Congress about the fact that 
it's reality and we probably can't change it makes absolutely 
no sense.
    I'm kind of curious and interested to see whether it might 
be more sensible to sort of even realign the deadlines, the 
sequester deadline. We are now, based on the vote we just had 
on the floor of the Senate, in a budgetary process where 
there's a strong likelihood that we'll be able to produce 
budgets together with the House. Why would we be making short-
term one-off decisions that are holdovers from a previous 
Congress that couldn't get it right when we are embarking upon 
a budget process? To my way of thinking, that's the way you 
ought to make revenue and spending decisions, in accord with a 
budget, rather than through gimmicks like sequester.
    I think we're going to get out of this budget uncertainty, 
but when we do you will have the task, if confirmed, of being 
the Secretary of Defense in a resource-constrained environment 
and you're going to have to deal, hopefully in a more 
thoughtful budgetary process with Congress, on how to make 
priorities about spending. I'd like to have you talk a little 
bit about how you would approach that administrative task in a 
resource-constrained world, how you're going to approach that 
task of dealing with these fiscal realities.
    Senator Hagel. First, as I noted this morning in my opening 
statement, if I am confirmed I would intend to make this 
relationship between the Secretary of Defense and Congress a 
partnership, much as Secretary Panetta has done. I think it's 
critically important for many reasons. Let's start with the 
budget. You authorize, you appropriate. The Federal Government 
is captive to that authorization and appropriation, and each 
Department must work within the budgetary framework of those 
resources.
    I have said that, like all of these big issues, it is a 
matter of, first of all, clearly defining the mission in its 
entirety as to what is the mission of DOD, then what are our 
priorities as they fit into our strategic interests around the 
world, and the how do you do it? How do you manage it? How do 
you lead?
    That includes working closely with the Chiefs. That 
includes working with all the leadership within DOD. It's about 
teams, it's about people, and it's about building consensus in 
Congress as well as within the military.
    Each Military Chief has a responsibility for his or her 
areas and Service, and that's as it should be. Obviously, 
Goldwater-Nichols integrated our Services, which was the right 
thing. I think most people agree with that. But also, the 
Commandant of the Marine Corps and each Chief has a 
responsibility to look out for the interests of their Service. 
The coordination of those efforts and the understanding the 
bigger picture are critically important. Those are all 
different elements, not unlike you as a governor at one time, 
would bring to the job.
    Senator Kaine. Senator, switching gears for a minute, it is 
still kind of hard to contemplate that if confirmed you would 
be the first enlisted person to hold the position of Secretary 
of Defense, and I want to ask a question about especially our 
enlisteds. Senator Manchin touched upon it earlier, the 
unacceptably high rate of unemployment of folks exiting 
military service. I think officers have a little bit easier 
time, but when we see an unemployment rate among enlisteds that 
is higher than the national average, when they've sacrificed, 
when they've given, and when they have leadership and technical 
skills that could benefit a civilian workforce, we know 
something is wrong.
    There have been some pilot projects through the NDAAs in 
2012 and 2013 to focus on an issue that matters a lot to me, 
and we talked about it, how to credential Active Duty military 
while they are in their military occupational specialties, 
while they are gaining technical skills, with credentials that 
mean something in the civilian workforce, so that when they 
leave they're not just an E-5 or a gunny sergeant, which people 
in the civilian workforce may not understand, but they actually 
have the credentials that the civilian-hiring workforce does 
understand.
    Are you committed to pushing forward on those pilot 
programs and expanding them so that we can get at this 
unemployment issue?
    Senator Hagel. Absolutely. Again, I noted that in my 
opening statement, Senator. I think I have some experience in 
that area over the years. I'm committed to that. As I said, 
nothing is more important than our men and women and their 
families. That doesn't mean just throughout their time in our 
service to our country, but afterward. What this country 
commits to them, we must fulfill that commitment.
    Senator Kaine. One last comment, Senator Hagel, not a 
question. As the topics have come up today, when we talked 
about Iran and the threat of a nuclear Iran, we've often talked 
about it as linked with Israel's security, which it is. They're 
Holocaust deniers and they've threatened the security of the 
State of Israel. But I want to make sure that everybody in this 
chamber understands it's not just about the security of Israel.
    The Iranian nuclear threat is a much bigger one. It is very 
clear that if Iran gets nuclear weapons that other nations will 
start to do the same thing, and that would cut completely 
counter to I know principles that you hold, principles the 
President holds. It's not just on Israel's shoulders to be 
worried about a nuclear Iran. It is a threat that we all need 
to worry about.
    Senator Hagel. Thank you. I agree. I think, just to add one 
point on that, you all know, of course, and many have been 
involved in this over the years, the current P5 Plus 1 
engagement to get all five members of the U.N. Security Council 
together on this one issue. Now, we have variations of exactly 
what should be done. But I think that gives the world some 
indication of how Russia, China, the United States, and 
essentially all nations of the world view the threat of a 
nuclear Iran.
    Senator Kaine. Thank you, Senator.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Kaine.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Thank you, Senator, for being here, and thank you very much 
for your military service.
    My single biggest concern, Senator, about the nomination is 
the dramatic flip-flops between your past statements and record 
and what you're saying as the nominee. They're about key core 
issues, and we've discussed some of those today. I wanted to 
focus on that, and I apologize if I go over some of the things 
that have come up before. I couldn't be here for most of the 
hearing.
    In 2006, when Israel was responding to attacks by Hezbollah 
from Lebanon, you called that response a ``sickening 
slaughter'' and you accused Israel of ``the systematic 
destruction of an American friend, the country and people of 
Lebanon''. What do you say about those quotes today?
    Senator Hagel. Well, first, I said them. I've been asked 
about them. I have said I regret saying that. It was in the 
larger context of a speech I made about what was going on, the 
30-some days of war going on. I also included in that speech 
the responsibility of Hezbollah, who started the war. So it 
wasn't exactly the way you just noted it. The language is 
exact, what you just said, but it was a larger context.
    Yes, I regret that language. But I think the bigger point 
is, Senator--and I have noted this all morning--my unequivocal 
support of Israel over the years. There's been no flip-flop on 
that. How I've voted, I've never voted against anything but 
Israel's interests in every vote I've cast in the U.S. Senate. 
I've said it in my book. They're a special, historic ally. We 
will always support them and defend them. I've said it in my 
speeches.
    There's no flip-flop on my support for Israel.
    Senator Vitter. Is there a flip-flop on your calling their 
response to Hezbollah ``the systematic destruction of an 
American friend, the country and people of Lebanon''? Do you 
stand by that today?
    Senator Hagel. I just said I said that, and I said that I 
regretted saying that. But that's not----
    Senator Vitter. Do you stand by those words, or is that a 
flip-flop?
    Senator Hagel. No. If I had a chance to edit those words 
out, I would.
    Senator Vitter. That's what I'm talking about in terms of 
flip-flop.
    Senator Hagel. I suppose if I had a chance to edit a lot of 
things in my life, Senator, I'd probably be fairly busy.
    Senator Vitter. Let me move on because I have a number of 
these concerns. In 1998, in a Senate hearing, you said that 
Secretary of State Madeleine Albright had ``tilted way too far 
toward Israel in the Middle East peace process''. Do you still 
think that of that peace process in 1998?
    Senator Hagel. I don't recall the event. I don't recall the 
words. I don't know where it comes from. I don't know the 
context. Again, Senator, I go back for years and years and 
years on different things I've said, but I don't recall that or 
what the context was, so I don't know.
    Secretary Albright has endorsed me, by the way, to be the 
next Secretary of Defense. I worked very closely with Secretary 
Albright, as I did with President Clinton and his 
administration, in support of Israel.
    Senator Vitter. In general, at that time under the Clinton 
administration, do you think that they were going ``way too far 
toward Israel in the Middle East peace process''?
    Senator Hagel. No, I don't, because I was very supportive 
of what the President did at the end of his term in December-
January, December 2000, January 2001. As a matter of fact, I 
recount that episode in my book, when I was in Israel.
    Senator Vitter. Just to clarify, that's the sort of flip-
flop I'm talking about, because that's what you said then and 
you're changing your mind now.
    Senator Hagel. Senator, that's not a flip-flop. I don't 
recall everything I've said in the last 20 years or 25 years. 
If I could go back and change some of it, I would. But that 
still doesn't discount the support that I've always given 
Israel and continue to give Israel.
    Senator Vitter. Let me go to a third thing, is actually 
what you said today, talking about Iran as a ``legitimate 
elected government''. Do you think the election that had to do 
with this Iranian Government coming to power was free and fair 
and legitimate?
    Senator Hagel. I noted that the term ``legitimate'' was not 
the term I should have used. I should have used ``recognized''. 
That's the more appropriate term. I was referring to the fact 
that it's a nation that is a member of the United Nations, it 
has embassies from all our allies.
    Senator Vitter. What about the----
    Senator Hagel. It's a recognized nation.
    Senator Vitter. What about the word ``elected,'' because 
you said ``legitimate elected government''?
    Senator Hagel. There was an election in Iran.
    Senator Vitter. So my question specifically was, you 
apparently think that was a free and fair and legitimate 
election?
    Senator Hagel. That's not what I said.
    Senator Vitter. That's why I'm asking what you meant, 
because you said ``legitimate elected government''.
    Senator Hagel. I just explained I should have said 
``recognized'' instead of ``legitimate,'' which I did earlier 
today. There was an election. There will be another 
presidential election in June of this year for President of 
Iran. Whether it's free and fair, I don't know.
    Senator Vitter. Do you expect it to be free and fair and 
legitimate?
    Senator Hagel. I don't know.
    Senator Vitter. Okay. You have no expectations one way or 
the other about that?
    Senator Hagel. I do know that Iran is not exactly a model 
democracy and it has not been. I don't have any expectations 
for a free, fair election.
    Senator Vitter. Okay. In 2008, you wrote that a nuclear 
Iran might be tolerable because ``sovereign nation states 
possessing nuclear weapons capability, as opposed to stateless 
terrorist groups, will often respond with some degree of 
responsible, or at least sane, behavior''. Is that still your 
hope or expectation about this Government of Iran?
    Senator Hagel. Again, I'm not sure where the reference came 
from or the context. But what I obviously was referring to were 
different options that people will look at in regard to Iran 
getting nuclear weapons. I've always said that Iran must not 
get weapons of mass destruction. I've always said it's a 
sponsor of terrorists, of terrorism, and I've always said the 
military option should remain on the table to assure that Iran 
does not get nuclear weapons.
    Senator Vitter. Again, this quote, you suggest that Iran 
would maybe or hopefully respond in a ``responsible, or at 
least sane,'' way. Those were the words. Is that still your 
expectation or hope?
    Senator Hagel. I always have hope that people respond in a 
sane way. But that doesn't at all change the facts that it is a 
dangerous, dangerous country that's a threat to the United 
States, Israel, and the entire world.
    Senator Vitter. Okay. After your nomination, the Iranian 
Government press noted with satisfaction that the ``anti-
Israel'' Hagel--obviously, that's not your quote; that's 
theirs--is known for ``his criticism of Washington's anti-Iran 
policies,'' and that he ``has consistently opposed any plan to 
launch a military strike against Iran''. Why do you think they 
have that impression?
    Senator Hagel. First of all, it's not an accurate quote. 
I've never opposed military action against Iran.
    Senator Vitter. Let me just clarify. It's an accurate quote 
of the Iranian Government press. Why do you think they have 
that impression?
    Senator Hagel. It's not an accurate statement about my 
position.
    Senator Vitter. Right. But why do you think they have that 
impression?
    Senator Hagel. As I said in answer to that question 
earlier, I have enough difficulty understanding American 
politics, Senator. I surely don't understand Iranian politics.
    Senator Vitter. Thank you.
    Senator Hagel. But if I might add, I also said that there 
have been some rather significant Israeli Government leaders 
recently that have said some pretty nice things about me, 
current Israeli leaders.
    Senator Vitter. Thank you.
    Senator Hagel. Thank you.
    Chairman Levin. Thank you, Senator Vitter.
    Senator King.
    Senator King. Like all the other inquisitors today, 
Senator, I want to thank you for your service, and particularly 
for your willingness to put yourself through this process to 
serve your country once again. It's one of my life principles 
never to take a job where I would have to be confirmed by a 
legislative body, and you're doing it.
    I also want to comment, I read one commentator that said 
the fact that this guy was an enlisted man in Vietnam is nice, 
but not really significant. I think it's very significant. I'm 
a bit of a student of the Cuban missile crisis, the most 
dangerous moment this country has ever experienced, and anybody 
that studies that period, it's hard to escape the conclusion 
that President Kennedy's service on the front lines of World 
War II and Chairman Khrushchev's service in his army during 
World War II was a significant influence on their willingness 
to back away from the nuclear precipice. I think it's very 
important to have people with your experience in this position.
    Most of the questions, probably 90 percent, today have been 
about policy. But the reality is, as I think you would concede, 
that the policy comes from the President of the United States. 
You're certainly going to advise, but that's where the policy 
comes from. I'd like to ask your thoughts about management, 
because you're about to take on the world's most cumbersome 
bureaucracy, with a lot of problems and headaches and budgetary 
challenges.
    Just share with me some thoughts about how you're going to 
approach the management of DOD?
    Senator Hagel. Senator, thank you. I note you were sitting 
there during the exchange I had with Senator Kaine about some 
of this, and I would, in answering your question, pick up on a 
couple of those observations.
    First--and you too, I know, you were a Governor. So you 
both understand a lot of the pieces of this. No matter how big 
an organization is, there are still some fundamentals to 
leadership and management. Now, as you have noted, DOD is the 
largest institution certainly in this country, maybe the world. 
How then do you try to manage it? Well, it's not about me. The 
Secretary of Defense, he leads, he advises the President. But 
it's really about the people who have the accountability and 
the responsibility to manage every aspect of our defense 
apparatus. That includes all the officers. I think there are 
over 50 presidential appointees in DOD. You have obviously the 
military, uniformed military, 1.3 million there. So all of 
these people are required to manage the Department.
    I think a fundamental to me in answering your question is 
accountability. We've had some discussions today about audits. 
All institutions must be accountable. Elected officials are 
accountable. We're all accountable. The emphasis on 
accountability I don't think can ever be overstated. You give 
managers flexibility, you give them resources, but you give 
them direction and expectations, and they have to be very 
clear, very direct, and very defined, but not to the point 
where you don't want their input and their ability to be 
flexible with their management. I think that's, in my opinion, 
Senator, is the key to anything, but surely it is the key to 
something as large as DOD.
    A number of questions were asked of me today about specific 
programs, submarine programs, different areas of technology and 
acquisitions, and our superior technology. I've said I don't 
know enough about it. I don't. There are a lot of things I 
don't know about. I, if confirmed, intend to know a lot more 
than I do. I will have to.
    But at the same time, I would never think that this, as I 
said earlier, is about me or I will be running anything. I will 
be the leader, I'll be responsible, I'll be accountable. But I 
have to rely on the right teams, the right people, bring those 
people together. Again, it's accountability and responsibility.
    I would stop there, if that gives you some sense of how I 
would intend to do this business.
    Senator King. My theory of leadership is hire good people 
and take credit for what they do. That's my best advice.
    You're a guy from Nebraska. You were in the Army. I'm 
imaging that every morning you don't get up and think about the 
Navy. I hope to correct that over the next few years. 
Particularly of concern to us right now in Maine and in other 
parts of the country is the multi-year procurement program 
which is in jeopardy because of the budget situation.
    Your feelings about multi-year procurement and maintaining 
the industrial base, which we just have to do if we're going to 
be able to maintain our force?
    Senator Hagel. Governor, you probably know, and Governor 
Kaine does as well, that there is such a thing as a Nebraska 
navy. Our governors make these distinguished appointments 
throughout their career. Our fleet is small but mighty. But 
that has been my initial, early on experience with the Navy.
    Industrial base, I referenced that in a couple of comments 
I made earlier today in responding to questions. Absolutely 
essential to our future that we maintain a strong, growing, 
credible military industrial base, for all the reasons you 
understand. Certainly Senator Kaine does, being from Virginia, 
and other Senators here who have in their States these 
facilities and, more importantly, private companies that 
represent our industrial base.
    How we then prioritize our needs, how we account for and 
audit contracts, forward procurements, cost overruns, waste, 
fraud, and abuse, all part of it. This is going to be more and 
more essential as we are dealing with, as you have noted, a 
restricted budget. It may be a very restricted budget, 
depending on how things happen on sequestration.
    The Navy is an indispensable part of our security 
apparatus. First, it is the one visible projection of power 
that we have in the world. Obviously, our rebalancing of 
resources in the Asia-Pacific region are some indication of 
that. The Persian Gulf; we have been talking all day about 
Iran, about Israel, but specifically Iran in the Persian Gulf. 
You know we have our Fifth Fleet there in Bahrain. We have two 
carrier battle groups in and out of that small little area. The 
flexibility, agility, missile defense, nuclear, all those 
capabilities are within the Navy.
    I am a strong supporter of advancing our Navy technology 
and our efforts, and I will continue to do that if confirmed.
    Senator King. Thank you, Senator. I'll have some more 
questions at a later time. I appreciate it.
    Senator Hagel. Thank you.
    Chairman Levin. Thank you, Senator King.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Senator Hagel, thank you very much for the tremendous 
service that you've already provided to this country and for 
your willingness to consider taking on this challenge as 
Secretary of Defense and for your stamina at this hearing all 
day. You will certainly need it as Secretary of Defense.
    I want to follow up on Senator King's question about the 
Navy, because the Navy is obviously very important to us in New 
Hampshire as well. Our four public shipyards are the backbone 
of our naval power, but according to the Navy there's a huge 
backlog of the restoration and modernization projects at our 
shipyards. According to last year's numbers, that backlog was 
around $3 billion.
    At Portsmouth Naval Shipyard, which Senator King, Senator 
Ayotte, and I are all very concerned about, that number was 
$513 million. This backlog not only potentially affects our 
readiness, but it's also not cost effective. For example, a 
2010 Government Accountability Office report pointed out that a 
pier project at Norfolk, which I'm sure Senator Kaine is 
familiar with, if it had been addressed early it would have 
cost $15 million. Because that didn't happen, the pier now is 
going to cost about $85 million.
    In fiscal year 2012, Senators Collins, Ayotte, and I 
included an amendment in the NDAA bill that requires the 
Pentagon to produce a shipyard modernization plan to address 
these shortfalls. That report's late, but it was promised in 
the upcoming budget submission for fiscal year 2014. Will you 
commit to ensuring that this modernization plan is produced and 
will you commit to pressing the Navy, within the fiscal 
constraints that I appreciate, but to fully fund the 
investments that are needed to save money in the long term and 
ensure that we continue to be very effective and efficient at 
our shipyards?
    Senator Hagel. Yes, I will make that commitment to do 
everything I can to first understand the specifics, which I 
don't know all the details. But your request is preliminary to 
effective, efficient use of our resources and planning and our 
national security. So I will make that commitment. If I am 
confirmed, I will get the details. I will assure that the Navy 
responds.
    Senator Shaheen. Thank you. I'm sure Senators King and 
Ayotte join me in inviting you to come and visit the Portsmouth 
Naval Shipyard. We hope that you will do that as soon as you're 
confirmed.
    Senator Hagel. Thank you.
    Senator Shaheen. I know there's been a fair amount of 
discussion earlier today about your involvement with the 
organization Global Zero and what your position is on nuclear 
weapons. I think it's worth requoting what Senator Reed said 
about Ronald Reagan, who said that: ``We seek the total 
elimination one day of nuclear weapons from the face of the 
Earth.'' I think every President since Ronald Reagan has 
supported that aspirational goal, recognizing that at this 
point in time it is a goal.
    Certainly that's what President Obama has said he supports, 
is that some day, probably not in this lifetime, but some day, 
we should hope for a world that would be free of nuclear 
weapons.
    I know I've heard you say that you agree with those two 
statements, but do you also agree that as long as nuclear 
weapons exist that we have to maintain a safe, secure, and 
effective nuclear arsenal to deter any adversaries?
    Senator Hagel. Yes, completely, absolutely. I have never 
had any other position but that, as I have indicated this 
morning and this afternoon, and will continue to take that 
position. As I said in my opening statement and in answer to 
other questions, our nuclear deterrent has probably been the 
core of keeping world peace and avoiding a World War III, that 
nuclear deterrent.
    As long as there is the threat of nuclear weapons--and like 
you noted and President Obama noted in his Prague speech in 
2009--it probably will not happen in our lifetime. But, just as 
you noted and Senator Reed's comments about what President 
Reagan laid on the table in 1986, we need to keep working on 
it. We need to keep moving forward, attempting to do it.
    Quite frankly, if you look at the START agreements and you 
look at the different treaties we've had, we have brought those 
warheads down, under both Republican and Democratic 
administrations, bipartisan. What Sam Nunn said this morning, 
he and his former colleagues Secretary Kissinger, Secretary 
Shultz, Secretary Perry, hundreds of national leaders in 
Republican and Democratic administrations over the years have 
supported the reduction of weapons of nuclear destruction--not 
unilateral, but bilateral, negotiated and verifiable.
    As I said this morning, as Ronald Reagan said, ``Trust but 
verify''. Nothing unilateral.
    Senator Shaheen. Thank you very much.
    Again, I know there's been a lot of discussion about your 
comments relative to sanctions on Iran and various options that 
we might pursue with respect to Iran and nuclear weapons. But I 
wonder again if you would confirm what your position is on the 
President's current strategy of strong diplomacy, tough 
international sanctions, and keeping all the options on the 
table?
    Senator Hagel. You have just defined President Obama's 
strategy on Iran, which I firmly support, strongly support. It 
is the wise way to do it. I don't know if I mentioned this to 
you in our meeting, but I wrote a book in 2008 and I have a 
chapter on Iran, and I lay all that out in the chapter. As I've 
said, I don't think President Obama went to my chapter and 
developed his strategy based on my chapter, but there's nothing 
in that chapter that I wrote in that book in 2008 or anything 
I've ever said that deviates from where the President is.
    The military option is always on the table, must be on the 
table, always should be the last option, always the last 
option. But aren't we wiser and smarter if we can figure this 
out, accomplish our objectives, without having to go to war, 
for everybody?
    Senator Shaheen. I hope so.
    You referenced the meeting that we had last week and I very 
much appreciated your taking time to come in and sit down and 
talk about some of the statements that have been represented 
that you have addressed today. One of those had to do with 
Israel's security. Again, I know this has been discussed at 
length during the day today, but I wonder if again you could 
reconfirm what your commitment is on Israel and the security of 
Israel in the Middle East?
    Senator Hagel. My support of Israel's security is and 
always has been very clear. I strongly support Israel. The 
security of Israel is a commitment that we made to Israel in 
1948 when Israel was born under American leadership, President 
Harry Truman. That commitment is a bond that is more than just 
an ally to ally. It is special, it's historical, it's values-
driven.
    I've never equivocated from that line. My votes in the 
Senate have shown that. What I've said publicly has shown that. 
I've said this in my book. Absolutely, and we'll continue to do 
that.
    Senator Shaheen. Thank you very much.
    Chairman Levin. Thank you very much, Senator Shaheen.
    Okay, we're going to have a 5-minute second round, and if 
we need a third round we will have a third round. I'm going to 
try to take less than 5 minutes so I can yield a couple 
minutes, if I still have them, to Senator Inhofe.
    Senator Inhofe. Thank you.
    Chairman Levin. Earlier today, Senator Hagel, one of my 
colleagues made a statement that you had not responded to 
requests for copies of all your speeches and to requests about 
contributions to certain organizations I believe that you 
either served or had spoken to, and that you didn't have the 
opportunity at that time to respond to that statement. I want 
to give you the opportunity now, if you wish to, or if you 
prefer to respond for the record.
    Senator Hagel. Thank you, Mr. Chairman. I will respond for 
the record. But I will take this opportunity to respond. First, 
as far as I know--and I asked again at the break of our 
counsel, Ethics Office lawyers, have we responded to all 
requests or are we in the process of responding to every single 
request? The answer is yes. Some of these requests didn't come 
in until yesterday, specifically the financial documentation 
request. Copies of my speeches came in late.
    We have given the committee every copy of every speech that 
I have that's out there, every video that I have that's out 
there. On paid speeches, most every one of those paid speeches, 
in the contract it says that they are private and not 
videotaped. That wasn't my decision; that was the contract of 
the group I spoke to. I believe every paid speech I gave I 
didn't have a prepared text. I gave it extemporaneously, which 
is something I've been doing for long before I left the Senate.
    We are fulfilling every legal commitment I said and I am 
obligated to, and I've complied with every ethical request. I 
always have. I did when I was in the Senate. I'll continue to 
do it now. We are doing it now.
    Chairman Levin. There was one or two other times when you 
did not have the opportunity to reply to a question and, in 
order not to use up all my time, you should feel free to do 
that for the record. We're going to keep this record open until 
close of business tomorrow for questions and for your answers 
until close of business Monday, which means 5 p.m. tomorrow for 
questions for the record, 5 p.m. on Monday for your responses 
to questions for the record.
    At that time, would you give us the update on any 
additional documents, speeches, or information that you have 
been requested to provide which you have not yet been able to, 
but is in the works, so you can give us an update?
    Senator Hagel. I will. Again, I have committed and will 
continue to commit to complying with every legal document, 
legal requirement.
    Chairman Levin. Thank you.
    I hope I have a minute or 2 that I can then yield to 
Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I appreciate that 
courtesy very, very much. I'm going to have to hurry this up a 
little bit because it's less time than I thought we had, I say 
to my good friend.
    It was mentioned that one of the members up here thought I 
was being disrespectful during the time that I was questioning 
you. It was at a time when I made the statement that you have 
been endorsed by the ministry of Iran for your nomination to be 
Secretary of Defense. Do you consider that to be a 
disrespectful notion on my part?
    Senator Hagel. No, it's a legitimate question.
    Senator Inhofe. Thank you very much.
    I have kind of been the leader on postponing any further 
Abrams tanks or F-16s to Egypt until such time as that 
government is under control. This is my own statement, only 
representing my own thoughts. I think Morsi's an enemy. I think 
their military is a friend.
    There was a vote just a little while ago to do away 
permanently with the sending of any of this equipment to Egypt. 
I don't think that's a good idea. What I think is a good idea 
is to continue to use that as leverage. If you do that, you 
lose the leverage. I believe that right now, Morsi has already 
distanced himself from the military. To me that's a first good 
step, and I would like to think that we could reinstate a 
friend in that area.
    I would only ask you, would you agree with my statement 
that I came out with a long time ago or my bill that I 
introduced, I should say, and I re-introduced in a stronger way 
today, saying that we would withhold sending this equipment to 
Egypt until such time as these conditions are met? I mentioned 
the conditions of keeping the accords from Camp David and that 
type of thing. Would you consider that?
    Senator Hagel. First, that's a policy decision that the 
President of the United States would make. If he asks for my 
advice I would certainly give it to him. But to the bigger 
question, I think it is important that our assistance to Egypt 
be conditional. They play an absolutely critical role in 
fulfilling the commitments of Camp David for the security of 
Israel and elsewhere.
    Senator Inhofe. I'm sorry to interrupt you, but we're 
almost out of time right now. I appreciate that answer.
    You made one statement that I strongly disagreed with. You 
said that President Obama has been the strongest Israeli 
supporter since 1948. I have a hard time with that. I know that 
he's not up for confirmation; you are. But when you see 
statements coming out of the administration like, ``The United 
States believes that negotiations should result in two states 
with permanent Palestinian borders with Israel and Jordan and 
Egypt,'' and they come out with the statements like, ``We 
believe the borders of Israel and Palestine should be based on 
the 1967 borderlines,'' these are statements I think are very 
damaging, and I can assure you that the leadership over in 
Israel feel that those statements are damaging.
    Do you still feel that President Obama has been the 
strongest supporter of Israel since 1948?
    Senator Hagel. I do, and I will tell you very quickly why. 
First of all, the 2006 Quartet Principles that President Bush 
laid down I think cover most of the points that you've made, 
and I supported President Bush then and still do, what he did 
in developing those principles.
    But when you look at the assistance this administration has 
given to Israel, the most significant and largest military-to-
military exercise, Austere Challenge, Israeli-U.S. forces last 
fall, the additional moneys that we put into Iron Dome, the 
President's position, we have your back----
    Senator Inhofe. I've answered the question. That's fine. I 
appreciate it.
    Senator Hagel. I think it's hard to----
    Senator Inhofe. But one other subject before we run out of 
time here, and it's one that I know you're very interested in. 
You actually were a co-sponsor of the Missile Defense Act of 
1999 and I was, too. So we agreed. Times have changed since 
that time. At that time people thought having the capabilities 
was confined to the Soviet Union at that time, or Russia, and 
the United States. A lot has happened since then.
    I often say that one of the things I disagreed with most in 
the first budget that this President had was when he did away 
with the ground-based interceptor site in Poland. I think most 
people are aware that was built for protection of Western 
Europe and the Eastern United States. I'm satisfied that we 
have, even with the reduction of ground-based interceptors on 
the west coast, which I disagreed with, but I still think we 
have adequate protection on the west coast. It's from the east 
coast, and right now our intelligence still says today that 
Iran will have the weapon capability and the delivery 
capability by 2015. That's why it was supposed to be there.
    Now there's a discussion saying to cover that void we need 
to have a third site. Do you support a third site of ground-
based interceptor? It would be on the east coast somewhere.
    Senator Hagel. I'm aware of the NDAA authorization and 
instruction for a third site and an environmental impact 
statement. I don't know enough of the details. If I am 
confirmed and go over there, I will get into it. But to respond 
to that, which I will for the record, I just don't know enough 
about it.
    Senator Inhofe. Okay, if you'd respond for the record. I 
think it's very significant and I think that most people are 
looking at this with this void. You have a period of time 
between 2015--nobody disputes the capability that Iran will 
have at that time. It's not even classified. But there is still 
a void of about 6 years between that and when we would have the 
capability to knock down what has to be knocked down unless we 
have a third site in place. I am hoping that maybe for the 
record you'll come back and say that you support the third 
site.
    [The information referred to follows:]

    If confirmed, I will work to ensure that the analysis Congress 
requested in section 221 of the National Defense Authorization Act for 
Fiscal Year 2013 to evaluate additional missile defense locations in 
the United States, including on the east coast, will be delivered on a 
timely basis, and that Congress remains informed about the Department's 
analysis about how to best protect the U.S. Homeland.

    Senator Inhofe. The last thing I'll mention, if you'll 
forgive me, Mr. Chairman, when Senator Hirono talked to you she 
talked about your efforts and her expectations on your being 
involved in using DOD for all these environmental things. I 
would suggest to you that's why we have a Department of Energy. 
When I asked you the question, will you refrain from doing some 
of the things that have been done in the past in this 
administration, such as forcing the Navy to pay $26 a gallon 
for 450,000 gallons of fuel that you could buy for $3 and other 
things, it's billions of dollars that we're paying which we 
could be using for warfighting. I see an inconsistency in your 
answer to me and your answer to the Senator from Hawaii.
    Senator Hagel. My answer to the Senator from Hawaii was, I 
believe--they can read it back--that I am committed to all 
efficiencies that we can find in DOD which are in the interest 
of our country. I didn't commit to any one program.
    Senator Inhofe. Or any program that would be a costly 
program on experimentation, such as the programs that I've just 
mentioned, clearly are in the jurisdiction of the Department of 
Energy and they're the ones supposed to be doing it. Don't you 
agree that we should be confining ourselves to enhancing our 
warfighter capabilities?
    Senator Hagel. Well, of course. But I think within that 
realm certainly the kind of money that we spend, as you've 
noted, on fuel, that should include some not only sense of 
that, but are there things that we can be doing with our 
research and technology in DOD, why wouldn't we? It just seems 
to make sense.
    Senator Inhofe. Yes, we should as a government, but that's 
what the Department of Energy is supposed to be doing. When you 
said, as you suggest, the high cost of fuel, yes, it's a high 
cost because we're paying 10 times as much as we would have to 
pay, money that we could be putting toward our warfighting 
efforts. That's my point.
    Senator Hagel. Yes, I agree, but why wouldn't we be looking 
at all options if we have the kind of sophisticated research 
and technology that DOD does and has possession of? Why 
wouldn't we be enlarging that? I don't know anything more 
specific to or central to our security than energy.
    Senator Inhofe. I know my time has expired. We're spending 
literally millions, actually some billions of dollars, on some 
of these experimentations that again are not in the purview of 
this. Right now we're stalling 179 F-35s that we just recently 
are putting off. I always say that if they put them off 
indefinitely, that's just a cut; it's not a put-off. Those are 
things that we should be doing right now.
    We're looking at the Ohio-class sub. We should be doing 
that right now, but we've postponed it. If we were to spend the 
money that we're spending on the environmental causes on 
warfighting, I think it would do us better good. Apparently you 
don't agree with that.
    Senator Hagel. I've said what I said, but I will commit 
this to you, Senator, that, as I said to the Senator from 
Hawaii, I will, if I'm confirmed, will obviously look at all 
these programs. I'll have to.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Manchin.
    Senator Manchin. Thank you.
    Sir, I feel like I want to apologize for some of the tone 
and demeanor today.
    With that being said, if I could ask you this, since we're 
so again talking about things you have done, things you have 
said over the years. How did you get to Vietnam? I want to go 
back there. Were you ordered to go to Vietnam? Were you sent 
there? Or how was your orders?
    Senator Hagel. Actually I got to Vietnam through kind of an 
interesting route. I volunteered for the draft, as my brother 
did a month after me. During that time in 1967 the draft was 
coming down with pretty heavy levies. You recall.
    Senator Manchin. I was there.
    Senator Hagel. I know your story. They wouldn't take you, 
not because you weren't smart enough, of course, but they 
wouldn't take you because of your knees. I know you tried to 
bribe your way in, but they still wouldn't let you. I admire 
you for that effort and I know your story.
    I went to basic training, advanced infantry training. My 
brother followed me everywhere a month after me. After advanced 
infantry training, I was selected to be one of nine first class 
then-Top Secret shoulder-fired heat-seeking missile called the 
Redeye gun. At the time it was classified, and it was built to 
bring down low-flying Soviet MiGs coming over Germany, eastern 
Germany, down the Fulda Gap.
    We went to White Sands Missile Range and spent 2 months 
training. It was all classified, couldn't get calls in or out. 
We were then quietly, all nine of us, ordered to go to Germany 
and be integrated into NATO units without any fanfare or 
anybody knowing about it.
    I got my orders to go to Germany. I went to Fort Dix, NJ, 
in November 1967. My eight fellow soldiers and I were getting 
packed up to get the bus to go out to the airport to take a 
flight to Germany, and I just decided if I was going to be in 
the military it didn't make much sense to go to Germany. I'd 
never been to Germany. My great-grandparents were from Germany. 
Probably a pretty good place, I thought, but I had to go where 
there was a war.
    So I took my orders down to the orderly, told him I was 
Private Hagel, I had orders to go to Germany, here are my 
orders, and I wanted to volunteer to go to Vietnam. The office 
was a bit quiet. They put me in a holding room. They brought 
priests, rabbis, ministers, psychiatrists. All came in to 
examine me, thinking that something was wrong, I was running 
away from something or I had killed somebody.
    After 2 days of testing me to see if it was okay, they held 
me, which--I scrubbed barracks for 5 days before they could cut 
new orders. So they gave me new orders to go to Vietnam, sent 
me home for 5 days, and then on to Travis Air Force Base in San 
Francisco, and I got to Vietnam December 1967, got back to the 
United States December----
    Senator Manchin. There is no reason any one of us should 
ever be concerned about your willing to do anything that you 
possibly can to defend this country and making sure that we 
defend against all foreign enemies, wherever they may be?
    Senator Hagel. I hope not, Senator. I mean, we can disagree 
on policies, but I think my life and my commitment to this 
country is pretty clear, and I'm proud of it.
    Senator Manchin. On that, sir, I would say that Israel, the 
spokespeople for Israel, support you. They've come to me and 
they tell me they support you. Have you gotten that?
    Senator Hagel. There are a lot of pro-Israeli groups that 
have formally come out and endorsed me, support me, which I'm 
grateful for.
    Senator Manchin. From what I've heard today, it sounds like 
Iran has wishful thinking.
    Senator Hagel. Evidently Iran supports me.
    Senator Manchin. The President has asked you to serve at 
this level, so he has confidence in you.
    Senator Hagel. The President did ask me to serve. I said in 
my opening statement I am grateful and honored by that trust 
and confidence, and I will do everything in my power never to 
do anything that would disabuse that confidence and trust for 
this country.
    Senator Manchin. One final question very quickly, if I may. 
As you see the role of Secretary of Defense--and I know we've 
talked about and you've been questioned on policy, and I know 
you're not going to be in a policy position. You're going to be 
basically following policy, not making policy. But if you could 
just wrap it up, what we should expect from your position as 
Secretary of Defense?
    Senator Hagel. Thank you, Senator. If I am confirmed, as I 
noted in my opening comments, I would see this relationship, 
Senator, as a partnership. I'm going to need your help. I'm 
going to need your advice. I'm going to need your 
collaboration.
    Many people on this authorization committee have a great 
deal of experience in this business, many far more than I do, 
as is the case in Congress, both the Senate and the House. I 
will need that. I will call upon that.
    I won't be in a policymaking position, as you note. I also 
committed to all of you--and those of you who served with me 
know this--I'll always be honest with you. You'll never have to 
worry about that. I'll listen to you. I'm sure we won't always 
agree, but I'll say it straight, and I'll give you and the 
President my honest, most informed advice always.
    Senator Manchin. Thank you. I'll say one more thing. Where 
I come from there's an old saying: If you can't change your 
mind, you can't change anything.
    Senator Hagel. Thank you.
    Chairman Levin. Thank you, Senator Manchin.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Thank you, Senator Hagel. You're holding up well. But it's 
an important office and you're asked to lead our Defense 
Department. I know you know the seriousness of that and it's 
exceedingly important.
    You have to know, and particularly in recent years, there 
has been tension in Congress between the executive branch and 
Congress over a number of issues. One of them is national 
missile defense, and that's a subcommittee I'm a member of and 
we've wrestled with that over the years, and had pretty 
consistently a bipartisan congressional vote on those issues. 
We voted again this year a unanimous Armed Services Defense 
Authorization Bill, unanimous out of committee, under Chairman 
Levin's leadership and Senator McCain.
    But I'm looking today, I believe in the National Journal, 
the Obama administration is moving to begin new U.S.-Russian 
talks on further drawdowns of the Nation's nuclear arsenal. 
That's also been an issue of concern, but I believe we've been 
staying fairly bipartisan and unified on that.
    But your report is what causes a great deal of concern, 
this study of the Global Zero group. But I just note that Vice 
President Biden is set to meet with Russian Foreign Minister 
Sergei Lavrov this weekend during the Munich security 
conference. National Security Advisor Tom Donilon will then 
head to Moscow in February. President Obama and then-President 
Medvedev signed the bilateral New START Treaty in 2010 calling 
for deployment of strategic nuclear arsenals involving 700 
delivery systems.
    Now, as I read the Global Zero report that you co-authored 
just last year, less than a year ago, you call for the 
elimination of all ICBMs, all tactical nuclear weapons, most of 
the bombers, I think 76 B-52s eliminated, leaving only 18 
bombers and 10 submarines. So instead of 700 delivery systems 
that was part of the New START, it looks like you're down to 
about 28 delivery systems. So this introduced dramatic concern.
    There are worries on Capitol Hill, the National Journal 
reports, that the administration could revise its missile 
shield strategy or go ahead with cutbacks to the U.S. stockpile 
as a means of drawing Russia into new negotiations. Foreign 
Policy Magazine reported ahead of your unannounced discussions 
with Lavrov, House committee chairman, subcommittee chairman, 
Mike Rogers asked that they have assurance as to what's going 
on there, essentially.
    I would note that the last year's defense authorization 
bill calls for briefings on these discussions to Congress, to 
the Armed Services Committee and the Foreign Relations 
Committee. It says ``Not later than 60 days after the date of 
the enactment of this act and not less than twice each year 
thereafter, the President or the President's designee shall 
brief the Committee on Foreign Relations and the Committee on 
Armed Services of the Senate on the dialogue between the United 
States and the Russian Federation on issues related to limits 
or controls on nuclear arms, missile defense systems, and long-
range conventional strike systems.'' The deadline I believe for 
that briefing would be March 2 this year.
    So a first question to you: If you're confirmed in this 
position, will you honor that request as part of the NDAA?
    Senator Hagel. The request for the briefing?
    Senator Sessions. Briefings, yes, the requirements for the 
briefings. Will you keep Congress advised on any discussions 
dealing with national missile defense and dialogue with Russia 
on national missile defense and nuclear arms and long-range 
conventional strike systems?
    Senator Hagel. Yes, I commit to do that.
    Senator Sessions. Also, there's a Sense of Congress on 
certain agreements: ``It is the Sense of Congress that any 
agreement between the United States and the Russian Federation 
related to nuclear arms or missile defense systems or long-
range conventional strike systems, obligating the United States 
to reduce or limit Armed Forces or armaments of the United 
States in any militarily significant manner may be made only 
pursuant to the treat-making power of the President as set 
forth in Article II, Section 2, Clause 2, of the Constitution 
of the United States.''
    That is a Sense of our Congress that any significant 
alteration of those deeply important relation between our two 
nations, the two most powerful nuclear nations in the world, 
would be done by treaty. Will you support that concept and 
before making significant changes present those changes to 
Congress pursuant to a treaty, and not as a either secret or 
open bilateral agreement?
    Senator Hagel. Your question is will I commit to a briefing 
on all this?
    Senator Sessions. No. Whether or not that any significant 
changes that would occur in our relationship on those issues, 
significant--``in any militarily significant manner may be made 
only pursuant to the treaty-making power of the President''. We 
would ask that that be presented to this Congress because we 
have treaties already that impact so much of this and Congress 
believes that any changes should also be made by treaty.
    Senator Hagel. Without getting into specifics of it, let me 
just commit to obviously consultation with Congress, with the 
authorizing committee, yes.
    Senator Sessions. It seems like we've not been consulted on 
the Biden trip and the Donilon trip. We expect that to be done. 
What's been going on is disturbing to us. The President said to 
Mr. Medvedev that we'll have more flexibility after the 
election, and he was clearly responding to these issues, 
missile defense I think in particular and maybe nuclear issues 
also. He wasn't consulting with the American people, wasn't 
telling us or Congress what he planned to do, but he was 
apparently willing to discuss it with the Russian leaders.
    I guess I'm asking you, will you comply with the treaty-
making matters? If these agreements are significant militarily, 
I believe they should be done by treaty and not by personal 
agreements between our two leaders.
    Senator Hagel. I would commit to fulfilling any treaty 
obligations and any commitments to Congress and any 
consultations that Congress needs to be part of, absolutely.
    Senator Sessions. I'm not sure that answered the question, 
because Congress is concerned about these kind of negotiations 
that are going on. We do not have--the President also has made 
it clear he believes in zero nuclear weapons. That is his 
policy for America. I think it's utterly unrealistic. It's just 
amazing to me, and that could lead us into unwise 
decisionmaking.
    Congress has a responsibility to the American people to 
ensure the national defense. We need to know and have you share 
those negotiations with us, and changes that impact our 
security relationships between us and Russia should be done by 
treaty, as they've been done in the past.
    Senator Hagel. I've never discussed any of the specifics of 
this with the President. I know he knows and believes and is 
committed to treaties. That's the purview of the U.S. Senate, 
as the Senate passed the New START treaty. All that goes into 
that negotiation with, in this particular case, Russia 
certainly Congress has to be involved in that.
    Senator Sessions. That's very important, Senator Hagel, I 
just have to tell you, because there's unease here that may not 
be in the works. There's been some discussion for some time 
about private unilateral or bilateral negotiations in which 
Congress is not involved, that impacts the national security of 
our country. That's why this was passed, just passed. So we 
expect you to comply with that, and I take your testimony that 
you would comply with that.
    Senator Hagel. I will comply with all requirements and 
laws, absolutely.
    Senator Sessions. Thank you, Mr. Chairman.
    Senator Hagel. Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator King.
    Senator King. Senator Hagel, one of the first meetings I 
had after I began running for this office last summer was with 
a group of veterans, going all the way from World War II right 
up through Iraq and Afghanistan. I want to share with you one 
of the ideas that came out of that meeting because it's been 
touched upon today, and that is the issue of employability and 
employment of particularly recent veterans. The suggestion was 
made that the Army and the military has recruiters, people who 
help to bring people in, and perhaps it might make some sense 
for them to have the reciprocal of recruiters, outplacement 
people to deal with soldiers who are, men and women, who are 
about to leave, because there's an information gap, is what the 
veterans told me, between leaving the military Active Duty and 
then going into the Veterans Administration jurisdiction. 
There's a gap there.
    You don't really need to respond, but that's a suggestion I 
might make, where it would be tremendously helpful to provide 
that kind of information--what the programs are, what's 
available, what the scholarships are, how the GI Bill works, 
all those things, to people. I'm sure it's done to some extent 
now, but to really regularize that and increase it, to be 
comparable to the effort that's put into recruiting.
    Senator Hagel. Thank you, Senator. I will think about that. 
I had not thought exactly about that potential, but I would say 
that as we think through how do we accommodate and fulfill 
commitments and assist our veterans, I think we have to open up 
all vistas of new thinking and that is one that would deserve 
some exploration and if I'm confirmed I look forward to 
pursuing the idea with you.
    Senator King. Thank you.
    I'm also serving on the Intelligence Committee and one of 
the issues--and you talked about this in your statement and 
it's been touched upon some today--is the whole issue of 
counterterrorism. Counterterrorism involves the actions of a 
number of agencies and bodies of the U.S. Government. I would 
commend to you that I think it deserves some real thought as to 
where DOD ends, stops, and the CIA begins in terms of action 
and counterterrorism action.
    I think it would be worthwhile for you, if you are 
confirmed, to meet with Mr. Brennan, if he's confirmed, to talk 
about the coordination between the two agencies, so we don't 
end up with similar, if not identical, functions in different 
regions of the world with whole different command structures, 
rules of engagement, and all of those kinds of things.
    I think counterterrorism sort of spans, covers the gap or 
the relationship between traditional defense and the 
Intelligence Community.
    Senator Hagel. That is an area that is becoming more and 
more relevant, complicated, title 10 versus title 50 and all 
those dynamics. If confirmed, yes, if Mr. Brennan is confirmed, 
we'll be spending some time together.
    Senator King. A final thought, and I know you've touched 
upon this. I don't think we can adequately emphasize the 
importance of the cyber threat. That may well be the war of the 
future. My sense is that we're all talking about it, but I'm 
not sure we have the sense of urgency. I know Secretary Panetta 
has increased or proposed the increase of that capacity. But 
people can die and our society could be brought to a standstill 
without a rocket ever taking off or an airplane penetrating our 
air space, and I hope that will be a point of emphasis because, 
as I say, I think that may be the next war.
    Senator Hagel. I agree. I noted it in my opening statement. 
I agree with everything you've said. This is a huge issue that 
continues to loom large over our future and our security, and 
it will have, if confirmed, a lot of my attention.
    Senator King. Thank you.
    Senator Hagel. Thank you.
    Senator King [presiding]. In the absence of the chairman, 
Senator Ayotte, I believe it's your opportunity.
    Senator Ayotte. Thank you, Mr. Chairman.
    Senator King. Wow, that was fast.
    Senator Ayotte. You've been promoted very quickly.
    Senator King. Really, that's astounding. [Laughter.]
    Senator Ayotte. First of all, we've all expressed our deep 
respect for your service to our country, but also let me thank 
you for your endurance. We appreciate it.
    I wanted to ask you about a speech that you made in 2007. 
It was at the Center for Strategic and International Studies 
and it was a speech titled ``The United States and Iran at 
Dangerous Crossroads''. In that speech you, in referring to 
Iran, you said that ``the strategy of containment remains 
relevant today''.
    I wanted to ask you about that statement that you made in 
2007 about ``the strategy of containment remains relevant'' 
with regard to Iran today. Now, that was in 2007, but why would 
you say that, first of all? Then, isn't that inconsistent with 
what you've been saying today with regard to containment?
    Senator Hagel. I don't have the speech in front of me and I 
think there was more to it than just that few words that you 
quoted. If I recall, the entire speech was about how do we deal 
with Iran. If I recall, what I was inventorying in specific 
reference to containment was within that inventory what are the 
options. I don't think that speech says that I support it.
    Senator Ayotte. No, but you said that it was relevant to 
the discussion with Iran, and I guess I would ask you to say 
why do you think that that was a strategy that we should have 
considered? It was obviously one of the things you mentioned.
    Senator Hagel. I didn't say it was a strategy, I don't 
think. As I said, in the context of how do we deal with----
    Senator Ayotte. I don't want to be unfair, but I think, 
just to be clear, the quote that you said was ``The strategy of 
containment remains relevant.'' So why is it relevant with 
regard to Iran?
    Senator Hagel. The bigger point is what I was saying, I 
think--I haven't looked at that speech since I gave it, 
probably, but I do recall some of it. The point was, what is 
the range of options that we would have to look at, the world 
would look at. Again, I didn't advocate it, I didn't recommend 
it, I didn't support it.
    Senator Ayotte. Was it that containment was one of the 
options?
    Senator Hagel. Yes. I mean, of course. When you look at the 
whole range of what your options are, that certainly would be 
one of them.
    Senator Ayotte. Do you think containment's one of the 
options now?
    Senator Hagel. No, I don't know. But it doesn't make any 
difference what I think. It's when you look at range, it's like 
the Global Zero report. That was not a recommendation report. 
That was a range of goals, aspirations, possibilities. That 
report never said we recommend the following. If I recall that 
speech, I think that was the same kind of what's the range of 
options.
    Senator Ayotte. Senator, I want to be clear: It does matter 
what you think, and obviously your understanding and thought 
process on these issues is very important to us. So as a 
follow-up, I know that Senator Vitter had asked you about a 
portion of the book that you wrote, ``America, Our Next 
Chapter,'' and it was in that book you had said that ``The 
genie of nuclear armaments is already out of the bottle no 
matter what Iran does.'' Obviously, North Korea, other powers. 
``In this imperfect world, sovereign nation states possession 
nuclear weapons capability, as opposed to stateless terrorist 
groups, will often respond with some degree of responsible, or 
at least sane, behavior.''
    Do you believe that Iran responds or will respond with some 
degree of responsible or sane behavior?
    Senator Hagel. First of all, it's not what I suggested in 
that quote.
    Senator Ayotte. Well, it's in the context of Iran, but I'm 
asking you just straightforwardly: Do you think that the 
Iranian regime responds--you talked about the difference 
between nation states versus, for example, stateless terrorist 
organizations. Do you believe, in the context of Iran, do you 
believe that the Iranian regime responds with some degree of 
responsible, or at least sane, behavior, or will respond like 
that?
    Senator Hagel. So far they have not, and I have said and 
I've said in that same book that you're quoting from, that Iran 
is a state sponsor of terrorism. I've said that many times. So 
no is the answer to your question.
    Senator Ayotte. If they haven't been responding with a 
level of, with a degree of responsible or sane behavior and, as 
you say in your book, that it's a state sponsor of terrorism, 
I'm also struggling with the question of why you would have 
thought that it was appropriate for us to have direct, 
unconditional talks with Iran, because here we have a regime 
that doesn't respond in a responsible or sane behavior, is a 
state sponsor of terrorism, and what we thought we could--why 
that would be an appropriate manner for us to address them?
    Senator Hagel. Well, first, I said ``engagement''. I think 
we should talk. We actually are indirectly in the P5 Plus 1. We 
have been. I think that's responsible. I think it's always 
responsible to try to talk first.
    North Korea, I don't consider North Korea a responsible, 
sane administration, but we are talking to North Korea. We've 
been talking bilaterally to North Korea. We're talking with the 
Party of 6 to North Korea. I think that's wise. I think it's 
always wise to try to talk to people before you get into war.
    Senator Ayotte. But I think that you were beyond the P5. 
You refer to direct discussions with our two countries, and 
also for establishing diplomatic ties with our country.
    Senator Hagel. Again, when I talked about the possibility 
of diplomatic ties or even I said, I think, in 2002 encouraging 
Iran to join the World Trade Organization, I've always thought 
that that's smarter more wiser, if you can push, help push, 
institutions like China into world bodies, because when they go 
into world bodies they have to comply with some semblance of 
international behavior. It doesn't mean they always will. They 
won't. They cheat. But I think we're smarter to do that.
    Senator, I've never thought engagement is weakness. I never 
thought it was surrender. I never thought it was appeasement. I 
think it's clearly in our interest. If that doesn't work, then 
I think the President's position and his strategy has been 
exactly right: Get the United Nations behind you, get the 
international sanctions behind you, keep military options on 
the table. If the military option is the only option, it's the 
only option.
    Senator Ayotte. Just to be clear, I don't think that all 
engagement is weakness, either. But I think there's a huge 
distinction when we're dealing with a regime that is the 
largest state sponsor of terrorism, and given the fact that 
they have a long history, including in Iraq, with assisting the 
militias to murder our troops, including what they've done with 
Hezbollah and Hamas, what they're doing now in Syria. I think 
there's always a distinction in how we deal with different 
players around the world, is my point.
    I know that my time has expired and I will submit for the 
record questions that I think are very important about the 
Virginia-class submarine. I share the important work done at 
the Portsmouth Naval Shipyard with my colleagues Senator Jeanne 
Shaheen and also I know Senator King is very focused on that, 
and maintaining our submarine fleet. I know that Senator 
Blumenthal asked you about that as well.
    I do have concerns that part of the Global Zero report does 
recommend that the Ohio-class submarine would actually be 
diminished down to 10. I'll follow up with those questions and 
the record. I have to go now. Thank you.
    Senator Hagel. I'd be glad to respond. Thank you.
    Chairman Levin [presiding]. Thank you, Senator Ayotte.
    Senator Donnelly?
    Senator Donnelly. No.
    Chairman Levin. Okay. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, Senator Hagel. It's been a long day and I do 
appreciate your answers to these important questions.
    When we spoke last week, we talked somewhat about the 
sequester, also budget concerns, the modernization of our 
nuclear forces. Especially being from Nebraska, you understand 
the importance of STRATCOM and its mission as it deals with 
deterrence that we use in this country and that we've used for 
many, many years and I believe has been very, very successful 
and it's a good point for us.
    Today you also in your opening discussed the need to 
modernize our defensive forces. You spoke to Senator Blunt, 
also Senator Blumenthal, about the need to modernize our Navy.
    I guess I would like to hear your thought process about how 
we're going to do this. Where's the money coming from? How are 
you going to advise the President in making these decisions? 
Because we're looking at sequester, we're looking at budget 
constraints. How is this all going to tie together, and what 
would be your advice to the President on how the Pentagon is 
going to address all of those budget constraints?
    Senator Hagel. Let's start with where we are. The Pentagon 
is adjusting, and I think responsibly, to our future based on 
the Budget Control Act of 2011. You know the details of that. 
The Chiefs have submitted plans. I think as we rebalance and 
refit and unwind the second war and all the other dynamics that 
are changing since the last decade, it gives us some new 
opportunities: audits, all the acquisition focus, 
accountability. We are being forced, DOD, to take a hard look 
at its priorities.
    But as I've said before, it begins with mission and then 
the resources to fulfill that mission, and then what are the 
priorities within that mission.
    To your specific question, how do you finance it all, well, 
if sequestration would take effect then all of this is going to 
be affected. That's exactly right. We've deferred some 
decisions. We've set back some of the schedules on some of our 
ships, planes, decisions on a number of things.
    It isn't just the dollars that affect this, but it's the 
planning, it's the flexibility. It's the ability to bring all 
this together and then project and plan.
    So in no way--I hope I did not give any indication that we 
were going to be able to continue to do everything for 
everybody everywhere. That's just not a reality.
    Senator Fischer. We can't.
    Senator Hagel. We can't.
    Senator Fischer. How do you decide, though? You've made 
commitments to members here today on philosophy, on working 
with this committee. Do we have a commitment to build up the 
Navy? Do we have a commitment to STRATCOM so that they can 
continue their mission of deterrence? Do we have those 
commitments?
    How do you decide what's going to be the priority? What 
will your advice be? Is STRATCOM important? Should that be a 
priority? Would it be a priority in your advice to the 
President?
    Senator Hagel. The Pentagon is working off the Defense 
Authorization Act of 2013, which this committee passed. That is 
the directive that frames the budgetary restraints, except if 
sequestration takes effect. That prioritizes, to your point, 
being what's important, what do you budget for, what do you 
finance. We have to manage that.
    If I am confirmed, then I'll be working closely with our 
Chiefs and all of our managers and decisionmakers on how we do 
this. On STRATCOM, I think STRATCOM is vitally important to the 
future of this country. It's been my position when I was in the 
Senate. It was my position long before I was in the Senate. Of 
the nine combatant commands--STRATCOM is one of them--that's a 
key command.
    We have to continue to fund our commands and find ways to 
do that. But that's going to require some tough choices and 
hard decisions.
    Senator Fischer. Right. Also, I believe we need to make 
sure we don't have hollow forces out there as well.
    My time's up. Once again, I thank you. I thank you for your 
service. I thank you for being here today. I thank you for your 
willingness to continue to serve the people of this country.
    Senator Hagel. Senator, thank you.
    Senator Fischer. Thank you.
    Senator Hagel. Thank you very much.
    Chairman Levin. Thank you very much, Senator Fischer.
    Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    Again, I join everybody else, Senator Hagel, in thanking 
you for staying today and the answers you've given.
    One of the things we were frustrated about was the 
difficulty of getting information on the groups you've spoken 
to in the last year, and of course the hundreds of groups 
you've spoken to in the course of your career would be too much 
to ask. I do have three comments from groups that I'm going to 
enter into the record, two comments you made before groups, one 
the American-Arab Anti-Discrimination Committee conference in 
2002; another Arab-American audience in 2007; and then in 2006, 
the one I'll put in the record right now and just enter the 
others, the Council on American-Islamic Relations Forum. 
``University of Chicago Professor John Mearsheimer praised 
Hagel for not being pro-Israel. He said `Potential presidential 
candidates for 2008, like Hillary Clinton, John McCain, Joe 
Biden, and Newt Gingrich, were falling all over themselves to 
express their support for Israel. The only exception to that 
rule was Senator Chuck Hagel.' '' Unfortunately, I don't have 
anything to go with that of what you might have said.
    But some of the concerns of being--I used to say when I was 
the Whip in the House that you could count on the House and the 
Senate to be, among other things, always pro-Israel, and I 
think that's been the mainstream of our views. I've seen a 
number of times, in fairness to you, where you've said you're 
pro-Israel, but that doesn't mean you have to be reflexively 
for everything that Israel is for.
    These statements are what they are. They're the things that 
were reported from comments you made that are out of the 
context of the other comments. But I'm going to put those all 
in the record.
    [The information referred to follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
    Senator Blunt. Also, earlier today I asked you about the 
comment about the bloated Pentagon. I want to get this 
straight. You said that that, those comments, were before the 
sequestration bill passed, and they were after. Sequestration 
passed on August 2. The Financial Times interview was on August 
29. What you said on August 29 in that Financial Times 
interview was you said ``I think''--August 29, 2011. The quote 
out of the article was:
    ``The Defense Department I think''--this was your quote. 
``The Defense Department I think in many ways has been bloated. 
Let's look at the reality here. The Defense Department's gotten 
everything it wanted the last 10 years and more. We've taken 
priorities, we've taken dollars, we've taken programs, we've 
taken policies out of the State Department, out of a number of 
other Departments, and put them over in Defense.''
    So that ``bloated'' comment was after sequestration. Of 
course, this is the Department you now, 18 months later, if 
this nomination is approved, would be running. Again, where do 
we find that, those bloated things in the Defense Department, 
and what are you prioritizing? Another way to ask what Ms. 
Fischer was asking maybe is, are we going to let money drive 
strategy here or strategy drive the money? As Secretary of 
Defense, which of those positions are you going to take and how 
are you going to advocate, here's the money we need for the 
strategy we must have until we get to the reality of here's the 
money you have, now do the best you can with it? I hope you're 
an advocate for strategic-driven spending in the Pentagon, 
rather than just the caretaker of the money that winds up 
there.
    Senator Hagel. Senator, thank you. There are a lot of 
pieces and I know we have time issues, but let me start this 
way. First, on the comments I made in the Financial Times 
interview, again as I addressed that today, that was an 
extensive interview about a lot of things. So I was 3 weeks 
off.
    Senator Blunt. Well, you were after the sequestration bill 
had passed, though. So you were talking----
    Senator Hagel. Not sequestration; the Budget Control Act.
    Senator Blunt. But that's what included--they were talking 
here about what would happen if you took these cuts.
    Senator Hagel. That's what I was talking about. But the 
Budget Control Act that was passed was implemented a few months 
later, which I agreed with, and obviously the majority of 
Congress did as well, to try to find $1 trillion overall in our 
Government in savings and $490 billion is coming out of DOD for 
the next 10 years.
    But to your bigger point, you start there with the reality 
of what Congress has passed, what Congress has decided to 
appropriate for each Federal agency. In this current fiscal 
year that we're living in, it's a $525 billion operating budget 
and $88 billion for overseas contingencies. DOD works within 
the framework of those numbers.
    I've said a number of times here that I agree with you that 
budget alone should not drive our national security, of course 
not. What is the mission, as I've said? What are the 
priorities, which you just brought up about different projects 
that Senator Fischer and others have asked me about? How are 
going to fund everything? Should you fund everything?
    Do times change? Are there different threats? Ten years 
ago, we put a lot of money in the Defense Department budget; 
there was no such thing as a cyber warfare threat. Do we need 
to do more there?
    Do we need to change our force presence in Asia? We've 
decided we're going to do that. That changes things. We're 
moving marines around in the Pacific. That wasn't the case 10 
years ago.
    So things change. You manage and you direct your efforts 
and you lead based on the security interests of your country 
first. If I am confirmed, Senator, I will be a strong, have to 
be a strong advocate for the Defense Department. That will be 
part of my job. But that doesn't mean that I don't have some 
responsibilities for efficient use of the taxpayers' dollars 
and effective use of the taxpayers' dollars.
    Senator Blunt. Just the opposite, you do have that 
responsibility.
    Senator Hagel. I do, that's right.
    Senator Blunt. But I think the point is we want to be sure 
that you're advocating for the money you think you need to 
strategically accomplish what we can. Then obviously at the end 
of the day you have to deal with the will of the process to 
provide the money you have. But we ought to let the money as 
much as possible be defined by the strategy rather than the 
other way around, Senator.
    Senator Hagel. I agree with that.
    Senator Blunt. I'm once again out of time.
    Senator Hagel. I agree with that, Senator. Thank you.
    Chairman Levin. Thank you, Senator Blunt.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Senator Hagel, we have listened all afternoon to a series 
of questions about what you said in 2002, in 2006, in 2007. I 
expect, though, if you're confirmed as the Secretary of Defense 
the President of the United States will not turn to you and ask 
you about your floor speeches, as elegant as they were. He will 
ask you if you're prepared to advise him on matters of 
literally life and death, that you have prepared DOD to address 
every contingency in a thoughtful way, knowing the costs and 
the benefits; that he assumes, as I do and as you've stated 
repeatedly, your staunch commitment to our allies, in 
particular in the context today of the State of Israel; and 
that you are fundamentally committed to the welfare of our 
troops and families because you have seen as a soldier that 
ultimately they are the difference in our military.
    Looking not backwards to a series of individual quotes and 
footnotes, but looking ahead, if you are there and the 
President turns to you, can you give us--and I think you can; 
I'm convinced of that--the confidence that you will be prepared 
to give him the advice he needs to make life and death 
decisions which he as Commander in Chief must make?
    Senator Hagel. Senator, when the President asked me to 
consider this job I didn't want another job. I was not looking 
for another job. Lilibet and I had a pretty good life since I 
left the Senate, nothing personal. But the friendships that 
we've maintained here and valued here and the experiences we 
had here we will treasure for always. Highest privilege of my 
life, serving in this body.
    I say that because I wasn't looking for another job. The 
President asked me to come see him and we had a long 
conversation one night, just the two of us, over an hour. We 
talked about the job, the world, security, the future. Within 
the context of that conversation, we got down into what about 
this job.
    I didn't try to sell him on the job, that I could do it. In 
fact, when he asked me about why am I qualified or why would I 
be uniquely qualified, I said I'm not. There are a lot of very 
qualified Americans who could do this job. I don't think a lot 
of them in the sense that they're out there everywhere. I think 
there are some qualifications for this job. But I'm not the 
only one.
    I said: ``Mr. President, I'm not going to sit here and try 
to convince you that I'm the right person. You know me, you 
know my record, you know what I believe.'' I've had the 
opportunity to work with him pretty closely over the last 4 
years as I served as co-chairman with you and Senator Levin's 
former colleague, Senator Dave Boren from Oklahoma, on the 
President's Intelligence Advisory Board. That's allowed me to 
stay pretty current with intelligence and make a contribution 
maybe a little bit there. In the last 4 years I've served on 
Secretary Gates', Secretary Panetta's Policy Advisory Boards.
    I do have some understanding, as I told him, of this. But 
why I think when Lilibet and I talked about it I agreed to go 
forward with this is because of the tremendous opportunities 
and the important time that we are living in and the 
opportunities we now have to help make a better world. I think 
the next few years are going to be as defining and as important 
in this country truly as any few years post-World War II.
    I told the President he was here at a very defining time, 
and if I can help him do that, if I can help this country, I 
want to do it. The experiences I'll bring to the job, Senator, 
I think I have a pretty varied background on a lot of things. I 
think always in the end, like any job, judgment is the ultimate 
determinant of everything. I think experience is a factor, 
varied experience, responsible experience. But that all adds up 
to judgment. I hope, if I'm confirmed, I can do those things to 
give the President and this country wise, informed, honest 
advice, and I will do everything within my power to do that.
    Senator Reed. Thank you very much.
    Chairman Levin. Thank you, Senator Reed.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Senator Hagel, thank you for remaining through what has 
been a very long hearing.
    I'd like to ask some additional questions to further 
explore your positions and your record, and begin with asking: 
Are you familiar with an individual named Chas Freeman?
    Senator Hagel. Yes, yes.
    Senator Cruz. He was, if I understand correctly, a vice 
chairman at the Atlantic Council; is that correct?
    Senator Hagel. When I became Chairman of the Atlantic 
Council after I left the Senate to replace General Jim Jones, 
he was one of many board members and I think was a vice 
chairman. But I never really worked with him in the Atlantic 
Council, but I know him, yes.
    Senator Cruz. You and he were part of a group that traveled 
last year to China together; is that correct as well?
    Senator Hagel. No, that's not correct.
    Senator Cruz. Okay. There have been press reports to that 
effect.
    Senator Hagel. Those press reports are incorrect. I have 
never been on any trip with Chas Freeman.
    Senator Cruz. There have also been press reports that has 
described Mr. Freeman as helping coordinate efforts to defend 
your nomination. Is that an accurate characterization?
    Senator Hagel. I haven't spoken with Chas Freeman in years. 
I don't know of any activity that he's involved in to endorse 
me. There are a lot of people I appreciate are endorsing me and 
supporting me, but I haven't talked to Chas Freeman in years.
    Senator Cruz. Is he someone whose judgment you respect?
    Senator Hagel. I think Chas Freeman has been an important 
public servant for this country. There are a lot of different 
opinions that people have on different issues. I don't agree 
with everybody and it's pretty clear everybody doesn't agree 
with me. So that's okay.
    Senator Cruz. Do you consider his views well within the 
mainstream?
    Senator Hagel. What views are you speaking about, Senator?
    Senator Cruz. His views on the Middle East and on the 
Nation of Israel?
    Senator Hagel. I'm not actually that familiar with all of 
his views. I can't speak for Chas Freeman.
    Senator Cruz. All right. Let's move on to your record then. 
You stated in your prepared remarks: ``My overall world view 
has never changed.'' I have to admit I find that difficult to 
reconcile with statements and positions you've taken for over a 
decade and what seems to me a fairly significant shift since 
you've been nominated for Secretary of Defense.
    What I'd like to do is go through some past statements, 
past positions of yours and just clarify if you agree with them 
or not, beginning with number one. In 2001, you voted against 
legislation sanctioning Iran. Now, am I correct you no longer 
agree with that position; you think sanctions against Iran are 
a good policy today?
    [The information referred to follows:]

    In 2001, Senator Hagel voted against legislation sanctioning Iran 
for its pursuit of weapons of mass destruction and support for 
international terrorism.

    Senator Hagel. I have said on the record multilateral 
international sanctions----
    Senator Cruz. Do you agree with sanctions against Iran?
    Senator Hagel. I'm sorry?
    Senator Cruz. Do you think sanctions against Iran are a 
good idea today?
    Senator Hagel. Yes, yes. Yes, I always have.
    Senator Cruz. So it's fair--I'm trying to characterize 
your--I'm trying to understand your views and characterize them 
fairly. It's fair to say you no longer agree with the position 
in 2001 that we should not be sanctioning Iran?
    Senator Hagel. That was a unilateral sanction and the Bush 
administration--
    Senator Cruz. Today do you think unilateral sanctions are a 
bad idea?
    Senator Hagel. It's a different time now because we now 
have international sanctions on. I've supported the President's 
position----
    Senator Cruz. Senator Hagel, please answer the question I 
asked. Today do you think unilateral sanctions would be a bad 
idea?
    Senator Hagel. Not today, 12 years later.
    Senator Cruz. So that is not a view you'd agree with today?
    Senator Hagel. Because times have changed. We now have 
international sanctions on them.
    Senator Cruz. The second slide: In 2007, you voted against 
legislation designating the Iranian Revolutionary Guard as a 
terrorist group.
    Senator Hagel. That's correct.
    [The information referred to follows:]

    In 2007, Senator Hagel voted against legislation designating the 
Iranian Revolutionary Guard as a terrorist group.

    Senator Cruz. You no longer agree with that policy. Today 
your position is the Iranian Revolutionary Guard is a terrorist 
group; is that correct?
    Senator Hagel. The Revolutionary Guard is part of the 
Iranian Government. The reason I voted against----
    Senator Cruz. Sir, I'm not asking the reason. I'm asking 
for your views today. Do you believe the Iranian Revolutionary 
Guard is a terrorist group, yes or no?
    Senator Hagel. It is part of a state sponsor of terrorism, 
so it's part of Iran, which I've said is a sponsor of state 
terrorism.
    Senator Cruz. Is that a yes?
    Senator Hagel. That vote wasn't that question. That vote 
gave----
    Senator Cruz. I'm asking your views today. Do you believe 
the Iranian Revolutionary National Guard is a terrorist group?
    Senator Hagel. It is part of a terrorist--it is part of a 
government that supports terrorism.
    Senator Cruz. Is that a yes or a no?
    Senator Hagel. It's the answer I just gave you.
    Senator Cruz. All right, we'll move on to the next one. In 
2008, you also voted against comprehensive Iran sanctions. 
We've already discussed that today you agree with sanctions, so 
that is another position----
    [The information referred to follows:]

    In 2008, Senator Hagel voted against the Comprehensive Iran 
Sanctions, Accountability and Divestment Act in the Senate Banking 
Committee.

    Senator Hagel. That again was a unilateral sanction that 
the Bush administration was opposed to, and the Secretary of 
State of this country, Secretary of State Condoleezza Rice, 
wrote that.
    Senator Cruz. Sir, my time is limited. I understand that 
you want to give reasons for the past positions. We've 
discussed the reasons. I'm simply trying to clarify your 
positions today.
    If you look at number four, in 2010 you stated you're not 
sure it's necessary to keep all options on the table with 
regard to Iran's nuclear program. Do you agree with that 
position today or is that no longer your position?
    [The information referred to follows:]

    In 2010, Senator Hagel told the Atlantic Council he was ``not so 
sure it is necessary to continue to say all options are on the table'' 
regarding Iran's nuclear program.

    Senator Hagel. I don't recall that. I have always said that 
all options remain on the table. I don't recall that speech.
    Senator Cruz. So this is not your position today? I'm just 
trying to understand.
    Senator Hagel. No, it's not. I have said that all options 
must remain on the table, including--in fact, in an op-ed I 
wrote with two former CENTCOM commanders last year----
    Senator Cruz. The final one I'm going to ask you: In a 1998 
Senate hearing, you stated that the United States has ``tilted 
too far towards Israel in the Middle East peace process''. Do 
you continue to agree with this position or is that no longer 
your position today?
    [The information referred to follows:]

    In a 1998 Senate hearing, Senator Hagel said that the United States 
has ``tilted too far toward Israel in the Middle East peace process.''

    Senator Hagel. I don't remember that, the context of the 
hearing or the speech or all the things I said in it. No, I 
don't think the United States has tilted too far to Israel. I 
support the President's position on Israel. I've said in my 
book and other speeches that I strongly support Israel.
    Senator Cruz. So you do not agree with this policy? I will 
point out that I have a list of 10 other statements in the past 
which I'm pretty confident if I asked you you would say you do 
not agree with, and they're all statements and quotes from you.
    In my judgment, your record as a U.S. Senator--and you and 
I don't know each other. We do not have a personal 
relationship. But I think your record and your past statements 
as a U.S. Senator demonstrate greater antagonism for the Nation 
of Israel than any member of this body, and also demonstrate a 
greater willingness to stand against sanctions, stand against 
military action, stand against any strong position against 
Iran, Hamas, Hezbollah, terrorists.
    That ultimately is why the Washington Post described your 
foreign policy views as ``near the fringe of the Senate''. That 
raises, I think, very serious questions about your suitability 
to serve as the Secretary of Defense. In my view, having a 
Secretary of Defense who is not viewed as supporting credible, 
strong military action makes it more likely the United States 
will be drawn into military conflict, and I think that would be 
a very unfortunate outcome.
    Thank you.
    Chairman Levin. Thank you, Senator Cruz.
    That ends the second round. If you want an opportunity to 
comment on that. If not, I will ask you some other questions.
    By the way, Senator Ayotte, in reaction to one of the 
things you said about it doesn't matter what I believe, I think 
what you were--first of all, I think it does matter. We all 
would agree it very much matters what you believe. But I think 
what you were pointing out is that ultimately what matters is 
what the President believes. I think that's what you were 
aiming at.
    Senator Hagel. That's exactly what I was aiming at, and 
that's what I meant to say, that's right. Thank you.
    Chairman Levin. I'm now going to ask you the standard 
questions that I've delayed, and these are just the questions 
we ask of every nominee.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Senator Hagel. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Senator Hagel. I'm sorry? I didn't hear.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Senator Hagel. No.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    Senator Hagel. Yes.
    Chairman Levin. If you are confirmed, will you cooperate in 
providing witnesses and briefers in response to congressional 
requests?
    Senator Hagel. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or their briefings?
    Senator Hagel. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Senator Hagel. Yes.
    Chairman Levin. Do you agree that you will provide 
documents, including copies of electronic forms of 
communication, in a timely manner when requested by a duly 
constituted committee or to consult with the committee 
regarding the basis for any good faith delay or denial in 
providing such documents?
    Senator Hagel. Yes.
    Chairman Levin. Now, we've completed our second round and 
that means that if there's other questions remaining, we can 
take a few minutes for them. Is there anybody that wants to? 
Yes, Senator King.
    Senator King. One very brief question. In watching 
television over the last week or so, I've seen an ad 
questioning your nomination, a television ad. I just wondered 
if you or any of the people that have worked on preparing you 
for this has any idea who's sponsoring that ad, because it's 
not apparent from the ad itself? Have you gotten to the bottom 
of that?
    Senator Hagel. Senator, first, I have not seen any of those 
ads. I know they're there. I long ago figured out the better 
way to live life is not get drug down in the underbrush of 
these kinds of things. So I don't pay attention to it. My focus 
is on what's important about this assignment, this job, if I am 
confirmed, and in particular this committee and this body, and 
preparing myself hopefully for what matters with the 
possibility that the U.S. Senate confirms me for this job.
    I have not asked anybody that question. I don't know, have 
never seen the ads.
    Senator King. Thank you very much, and thank you for your 
testimony today. You've been forthright and strong, and again I 
appreciate your commitment to this country.
    Senator Hagel. Thank you, Senator.
    Chairman Levin. Another question?
    Senator Cruz. Very briefly, I wanted to thank you for your 
commitment to this committee, number one, to provide a complete 
accounting and copies of the speeches you've given; and number 
two, to respond to the letter that you received 2 days ago 
requesting specific financial information. I appreciate your 
commitment to do that.
    I also would ask you--in our discussion about Chas Freeman 
you said you were not particularly close with him, but that 
your understanding was his views were within the mainstream, if 
that's a fair characterization.
    Senator Hagel. No, I didn't say in the mainstream. I said I 
don't know.
    Senator Cruz. Okay. What I would ask you to do also as a 
follow-up is to review in particular a speech that Mr. Freeman 
gave on March 4, 2011, at the Palestine Center in Washington, 
DC, and give me your judgment in terms of whether you agree 
with the views on the Middle East and the views of the Nation 
of Israel that are expressed in that speech. In particular, I 
would be interested in your views on the fifth paragraph of 
that speech.
    In my view, the views expressed in that speech are not 
accurate and not within the mainstream, and I would be 
interested if you concur in that assessment or if you have a 
different assessment.
    Chairman Levin. That's a question you're asking for the 
record?
    Senator Cruz. For the record, yes.
    [The information referred to follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Levin. Okay. Any other questions for the record 
need to be submitted, as I said before, by tomorrow at 5 p.m.
    I assume, Senator Cruz, that when you said that he's agreed 
to provide all of the speeches, it would be all the speeches 
that he has access to; is that fair?
    Senator Cruz. That he has or that he can get copies of. I 
would certainly hope and expect that he would engage in 
reasonable efforts to get copies of speeches if he doesn't have 
them in his immediate files.
    Chairman Levin. We'll say that if you have easy access or 
reasonable access to speeches you've given, even though you 
don't have them, that we would expect that you could provide 
this as well, as well as the other information you indicated 
you're perfectly happy to submit, you just haven't had the time 
to get it ready.
    Senator Hagel. Mr. Chairman, I will commit to that and 
every request, as we have. As I said, some of this I didn't see 
until yesterday. But everything that is out there that we can 
find, we'll make every effort to get it and provide it.
    Chairman Levin. We very much appreciate that, and your 
openness in your responses today.
    Again, the record will be open until tomorrow, as I said, 
at 5 p.m. But your answers we would hope and expect would be in 
by Monday at 5 p.m., because we would very much like to move 
this nomination forward to a resolution, first on this 
committee, and that timetable would help us move in an 
expeditious way.
    We thank you. We thank your family and your friends.
    Unless there are other questions, we will now stand 
adjourned. Thank you.
    [Whereupon, at 5:50 p.m., the committee adjourned.]

    [Prepared questions submitted to the Hon. Chuck Hagel by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. I believe that the success of our Armed Forces since the 
enactment of the Goldwater-Nichols Act amply demonstrates that the act 
has enhanced the ability of our Armed Forces to defend our Nation and 
to operate successfully as joint forces under our combatant commanders. 
If confirmed, I will evaluate the implementation of the act, and will 
make recommendations for modifications if necessary. At present, I am 
aware of no need to make changes to the act.
                   duties of the secretary of defense
    Question. Section 113 of title 10, U.S.C., provides that the 
Secretary of Defense is the principal assistant to the President in all 
matters relating to the Department of Defense (DOD). Subject to the 
direction of the President, the Secretary of Defense, under section 
113, has authority, direction, and control over DOD.
    Do you believe there are actions you need to take to enhance your 
ability to perform the duties of the Secretary of Defense?
    Answer. I believe title 10 provides the Secretary of Defense 
appropriate, sufficient, and clear authority to lead DOD and to serve 
as the principal assistant to the President on all matters relating to 
the Department. I do not foresee needing to take any actions to enhance 
the ability of the Secretary of Defense to execute assigned duties.
    Question. What changes to section 113, if any, would you recommend?
    Answer. At present, I believe that section 113 provides sufficient 
legal authority to the Secretary of Defense to allow him to perform his 
two primary functions. I do not foresee needing to recommend changes to 
section 113.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I volunteered for the draft and then volunteered to go to 
Vietnam after I received orders to go to Germany. I served a 12-month 
tour which included the Tet Offensive in 1968. I rose to the rank of 
infantry sergeant. For 10 of those months, I served alongside my 
younger brother Tom. I understand what it is like to be a soldier in 
war. I also understand what happens when there is poor morale and 
discipline among the troops and a lack of clear objectives, 
intelligence, and command and control from Washington. I believe that 
experience will help me as Secretary of Defense to ensure we maintain 
the best fighting force in the world, protect our men and women in 
uniform, and ensure that we are cautious and certain when contemplating 
the use of force.
    When I returned from Vietnam, I graduated from the University of 
Nebraska, using the G.I. Bill. Because of that benefit, I co-authored 
with fellow Vietnam veteran Senator Jim Webb, the new G.I. Bill which 
became law in 2008. I know the importance of providing our military 
personnel and their families with the benefits they need, not only 
while in the military, but once they return to civilian life, and I 
will not forget that if I am confirmed as Secretary of Defense.
    I was wounded twice during my tour in Vietnam. In 1981, I was 
appointed by President Reagan and confirmed by the Senate to be Deputy 
Administrator of the Veterans Administration. I later resigned because 
of inadequate support for Vietnam veterans suffering from Agent Orange 
and other Vietnam veterans programs that were being eliminated. I have 
worked with, and on behalf of veterans' organizations my entire life. I 
know when the system is working, and when it is failing. The past 
decade of war has produced tens of thousands of wounded warriors. Many 
are still on Active Duty. Others have or are transitioning to civilian 
life. All need the best care we they can give them. Because of my own 
experiences, I will honor that commitment to veterans and their 
families if I become Secretary of Defense.
    While I do not believe anyone can be fully prepared to manage an 
organization as large and complex as DOD, I believe that I have 
significant management experience that gives me a strong sense of what 
needs to be done. Most important is building and working with teams. 
This is always an essential foundational element of management and 
leadership. In the 1970s, I was the Chief of Staff to a U.S. 
Congressman and then later Manager of Government Affairs for Firestone 
Tire and Rubber Company. In the early 1980s, I co-founded Vanguard 
Cellular Systems, Inc., a publicly traded company, which became one of 
the largest independent cellular systems in the country. I also served 
as President and Chief Executive Officer of the World USO; the Chief 
Operating Officer of the 1990 Economic Summit of Industrialized Nations 
(G-7 Summit) in Houston, TX; Deputy Commissioner General of the United 
States for the 1982 World's Fair; President of the Private Sector 
Council and president of an investment bank. I have also served on 
boards of some of the world's largest companies.
    Finally as a U.S. Senator from Nebraska for 12 years, I have a 
legislative record of continuing and unwavering support for our 
military and our national security. I have voted to authorize the use 
of military force and I have questioned the military and foreign policy 
decisions of our leaders. I believe this experience has prepared me to 
make the tough decisionsand to know that I am accountable for those 
decisions.
                               priorities
    Question. If confirmed, you will confront a range of critical 
issues relating to threats to national security and ensuring that the 
Armed Forces are prepared to deal with these threats.
    In your view, what are the major challenges confronting the next 
Secretary of Defense?
    Answer. The next Secretary of Defense will be confronted with a 
myriad of challenges stemming from an ever more complex global 
environment. Some of the challenges we know today, but many will 
continue to unfold as we conclude over 10 years at war and look to the 
future of our military posture. In an ever changing world with both 
state and non-state actors developing nontraditional tools of war, the 
United States will be challenged by technological advancements that 
bring the battlefield to both space and cyberspace. Terrorist 
organizations continue to proliferate throughout the world and have a 
significant presence in places such as Yemen, Somalia and North Africa, 
areas that pose great risk for regional stability. With the ever 
present threat of Iran, the next Secretary of Defense must be vigilant 
in pursuing the goal of preventing Iran from acquiring a nuclear 
weapon, and must maintain our unshakeable commitment to Israel's 
security. As the United States begins to rebalance to the Asia-Pacific 
region, the Department will be faced by new challenges in this vital 
part of the world. Piracy, maritime security, disaster relief efforts, 
and, of course, continued vigilance to terrorism and proliferation of 
nuclear weapons name just a few known challenges. All of these things 
come while the United States is fighting its own battles at home to 
take care of its service men and women returning from over ten decades 
of war with rising medical costs and advanced medical conditions. 
Keeping the faith with our military men and women must remain a high 
priority to ensure the military itself stays as strong and faithful as 
its parts. While these are some of the few challenges we know, there 
are far too many that are not yet apparent. We must be prepared for any 
contingency we may face in the coming years all while doing so in the 
confines of this austere budget environment.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan to work with the President, Congress, 
and with senior civilian and military leaders of DOD to come up with 
comprehensive plans to address each issue. No single issue will have a 
single simple answer. This will be an iterative process that will 
employ the full force of Government. It will necessitate strong 
relationships I plan to maintain and strengthen with our allies and 
partners throughout the globe. We will define our post-2014 presence in 
Afghanistan and create a new relationship and partnership with 
Afghanistan. To counter terrorism, we will look into how we use our 
special operations forces and the development of new technologies and 
surveillance techniques. As long as nuclear weapons exist, we must 
maintain a safe, secure, and effective nuclear arsenal to deter any 
adversary. I am committed to considering all options to counter Iran 
and its aggression, and to maintain U.S. support for missile defense 
systems in Israel. With the rebalance to the Asia Pacific, our training 
and specializations will change as the battlefield and necessary skills 
of our servicemembers change. As our troops transition out of over 10 
years of war, I will look at the services available for our men and 
women, both those that continue to serve and those that transition to 
civilian life. If confirmed, I plan to continue the work of Secretary 
Panetta to address issues of the force, such as the unthinkable problem 
of sexual assault within our ranks. I will continue the implementation 
of the repeal of ``Don't Ask, Don't Tell'' and the opening of positions 
to women. I will give great attention to all issues that confront our 
country and our military to ensure the reputation and strength of the 
United States.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Secretary of Defense?
    Answer. If confirmed, it would be a priority to ensure the stable 
transition out of Afghanistan in the next few years, to maintain U.S. 
military and technological superiority against enemies both known and 
unknown, and to keep the faith with our men and women in the military 
standing guard to protect this great and vibrant country.
                            chain of command
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Section 
163(a) of title 10 further provides that the President may direct 
communications to combatant commanders be transmitted through the 
Chairman of the Joint Chiefs of Staff and may assign duties to the 
Chairman to assist the President and the Secretary of Defense in 
performing their command function.
    Do you believe that these provisions facilitate a clear and 
effective chain of command?
    Answer. I believe that having a clear and effective chain of 
command is essential to successful military operations, and that these 
provisions of law lay the foundation for such a chain of command.
    Question. In your view, do these provisions enhance or degrade 
civilian control of the military?
    Answer. In my view, these provisions significantly enhance civilian 
control by codifying the placement of the President, as Commander in 
Chief, and his principal assistant for military matters, the Secretary 
of Defense, where they can best exercise civilian control of the 
military: in the top two positions of the military chain of command.
    Question. Are there circumstances in which you believe it is 
appropriate for U.S. military forces to be under the operational 
command or control of an authority outside the chain of command 
established under title 10, U.S.C.?
    Answer. I believe that all military forces normally should operate 
under the chain of command established under section 162 of title 10, 
U.S.C. However, in certain sensitive operations a temporary exception 
to that chain of command may be appropriate. I understand that only the 
President may approve such an exception and the President retains 
overall command responsibility, as also recognized in section 162. Any 
military personnel supporting such sensitive operations remain 
accountable to the military chain of command, including the Uniform 
Code of Military Justice. If confirmed, I will provide the President 
with my best advice regarding any operation where an exception to the 
established chain of command may be appropriate.
       advice of the service chiefs and the combatant commanders
    Question. Section 151 of title 10, U.S.C., provides, in part, that 
the Chairman of the Joint Chiefs of Staff is the principal military 
adviser to the President, the National Security Council, and the 
Secretary of Defense and that if any member of the Joint Chiefs submits 
to the Chairman advice or an opinion, in disagreement with, or advice 
or an opinion in addition to, the advice presented by the Chairman, the 
Chairman shall present that advice or opinion at the same time he 
provides his own advice to the President, the National Security 
Council, and the Secretary of Defense. Section 163 of title 10, U.S.C., 
provides that the Chairman of the Joint Chiefs of Staff serves as the 
spokesman for the combatant commanders, especially on the operational 
requirements of their commands.
    What changes in law, if any, do you think may be necessary to 
ensure that the views of the individual Service Chiefs and of the 
combatant commanders are presented and considered?
    Answer. If confirmed, I will welcome and carefully consider the 
advice of the individual members of the Joint Chiefs of Staff and the 
combatant commanders. I believe that the current law provides ample 
authority for such a close, advisory process. If I find in the future 
that changes may enhance this process, I will work with the Department 
and Congress to implement those changes.
    Question. What is your view on the appropriate role of the Chief of 
the National Guard Bureau as a member of the Joint Chiefs of Staff?
    Answer. The Chief of the National Guard Bureau brings an important 
perspective to the Joint Chiefs and to the Department on matters 
affecting the National Guard. In my view, the Chief of the National 
Guard Bureau should fulfill his duty as a member of the Joint Chiefs of 
Staff in a manner consistent with the laws governing the role of the 
Chief of the National Guard Bureau and the role of the Joint Chiefs of 
Staff.
                         use of military force
    Question. The question as to whether and when U.S. forces should 
participate in potentially dangerous situations is one of the most 
important and difficult decisions that the national command authorities 
have to make. Prior Secretaries of Defense and Chairmen of the Joint 
Chiefs of Staff have proposed criteria to guide decisionmaking for such 
situations.
    What factors would you consider in making recommendations to the 
President on the use of force?
    Answer. Committing our troops to any military operation is a grave 
decision, and one I, if confirmed, would make carefully and cautiously. 
In making a recommendation to the President on the use of military 
force, I would consider all the factors previous Secretaries of Defense 
have identified. These would include: national interest and strategic 
objectives; domestic and international legal basis for action; our 
ability to achieve our objectives and achieve a successful outcome 
through use of force; the unique need for military force and 
alternative means, particularly non-military, for achieving our 
interests; the risks to our other interests and our force; and the 
sufficiency of sustained public support for use of force.
    Question. What circumstances should pertain for you to recommend 
that the President employ preemptive force?
    Answer. The United States must reserve the right, consistent with 
longstanding principles of self-defense, to use military force if 
intelligence or other information clearly demonstrates that force is 
necessary to prevent or blunt an imminent attack on the United States 
or an ally. If confirmed, in advising the President regarding the use 
of force to preempt an attack, I would consider such factors as: the 
nature and immediacy of the threat; the probability of an attack; 
whether a pattern of activity demonstrates the intent of an actor to 
carry out an attack; the likely scale of the attack and the injury, 
loss, or damage likely to result absent preemptive action; and the 
likelihood that there will be other opportunities to undertake 
effective action in self-defense. I would also ensure that, if force is 
determined to be necessary, we adhere to standards that govern the use 
of force and work to strengthen our legitimacy in taking action, 
including seeking broader international support.
    Question. What degree of certainty do you believe is necessary 
before the United States would use preemptive force?
    Answer. Any decision to use preemptive force must be informed by 
the best available intelligence regarding the threat that is to be 
countered. There should always be a sound factual basis for concluding 
that force is necessary to protect the United States or an ally from 
attack. If confirmed, I would examine the underlying intelligence 
critically as such a decision must not be taken lightly. I do not 
believe, however, that it is necessary that we know the precise timing, 
location, or nature of the hostile attack as a prerequisite to using 
force to counter or stop an attack on the United States or an ally.
                  national security budget reductions
    Question. Part 1 of the Budget Control Act (BCA) enacted on August 
2, 2011 established budget caps designed to realize $917 billion in 
budget savings in Federal discretionary spending over the period from 
fiscal year 2012 to fiscal year 2021. As a result, the administration's 
DOD current budget plan for fiscal years 2012 to 2021 is $487 billion 
lower than the $6.14 trillion it had projected a year earlier for the 
same 10-year period. This reduction amounts to nearly 8 percent 
compared to the previous plan.
    Do you believe that defense spending reductions of this magnitude 
(absent a sequester) can be accomplished without significant adverse 
impact on our national security?
    Answer. Based on my review to date, my answer is yes. I believe the 
Department's strategy can be accomplished within the constraints of the 
BCA. But only if the Department has to retain the flexibility to adjust 
the size of its forces and infrastructure, and take steps to control 
its costs, in accordance with the administration's present strategy and 
budget.
    Question. How would you assess the national military strategy to 
deal with the changed budget environment?
    Answer. I believe the Department has taken a hard look at the new 
security environment and developed a strategy that appropriately 
allocates reduced defense resources to the highest priority needs and 
ensures our national security objectives are met. If confirmed, I will 
further assess the strategy according to changes in the security 
environment and continued fiscal pressure.
    Question. What are the standards by which you will measure the 
adequacy of DOD funding, if confirmed?
    Answer. If confirmed, I would measure the adequacy of DOD funding 
by its ability to ensure that the Department is able to meet the 
country's security challenges and preserve the strongest military in 
the world.
    Question. If confirmed, in this era of budget austerity, how will 
you prioritize the objectives of completing the mission in Afghanistan, 
resetting of the force, investing in the future force, and meeting 
ongoing operational commitments around the world?
    Answer. Right now, I believe the Department can implement the 
administration's present strategy, which carefully balances the above 
objectives. I understand that the immediate needs of completing the 
mission in Afghanistan and ongoing operational commitments cannot 
jeopardize resetting the force and investing in our future. If 
confirmed, I will work to ensure that budget decisions are made 
carefully so that we maintain a healthy balance among those near-term 
and longer-term objectives. I will continue to refine the Department's 
spending in line with the priorities of the President's strategic 
objectives. However, if multi-year reductions in funding take place 
(such as those required by sequestration), the Department would need to 
significantly revise the defense strategy and, in all probability, 
would need to make some hard choices about which of our current 
national defense capabilities we could afford to retain.
                     readiness of the armed forces
    Question. The Joint Chiefs recently stated that ``the readiness of 
our Armed Forces is at a tipping point. We are on the brink of creating 
a hollow force due to an unprecedented convergence of budget conditions 
and legislation that could require the Department to retain more forces 
than requested while underfunding that force's readiness.''
    How do you currently assess the readiness of the Armed Forces?
    Answer. I am deeply impressed by the caliber and capabilities of 
our military forces. It is vitally important that they be ready to 
respond to the Nation's needs, and I am concerned that further budget 
cuts will negatively affect readiness. If confirmed, I will closely 
monitor the readiness of the force.
    Question. Do you agree with the Joint Chiefs that readiness is at 
tipping point?
    Answer. Maintaining ready forces is a priority, and I am concerned 
by the Joint Chiefs' assessment. If confirmed, I will work with the 
Joint Chiefs to better understand the basis of their assessment and how 
we can most effectively address the readiness challenges our military 
faces.
    Question. If confirmed, how would you assess the impact of budget 
conditions on the issue expressed by the Joint Chiefs of a hollow 
force?
    Answer. My sense is that the concerns the Joint Chiefs have 
expressed about readiness come from a variety of factors, including the 
challenges of recovering from 10 years of operational stress, of 
transitioning to a broader range of operations, and of doing all of 
this in the face of fiscal austerity and budget uncertainty. If 
confirmed, I will carefully monitor how all of these factors are posing 
risks to readiness and will work closely with the military and civilian 
leadership of the Department to mitigate those risks to the greatest 
extent possible.
    Question. How would you define a hollow force?
    Answer. A hollow force is one that has been rendered incapable of 
performing the mission that we expect it to conduct. With a hollow 
force, units do not have the resources, personnel, equipment, and 
training necessary to make them capable or ready to execute the defense 
strategies that secure our country.
                  budget uncertainly and sequestration
    Question. DOD is currently facing budget uncertainty due to the 
fact that it is operating under a Continuing Resolution (CR) through at 
least March 27, 2013 and due to the possibility that, absent a budget 
deal, the BCA will require a sequester of security funding totaling 
more than $40 billion starting on March 1, 2013. DOD officials have 
noted that, if CR is extended through the end of the current fiscal 
year, in its current form, readiness would suffer. They have also noted 
that a sequester could seriously threaten our ability to implement our 
current defense strategy. Secretary Panetta has stated that a sequester 
would have a ``devastating'' impact on DOD.
    What is your understanding of the impact a full-year Continuing 
Resolution would have on DOD?
    Answer. A year-long CR reduces the Department's funding flexibility 
by putting it into a straightjacket, spending money on last year's 
priorities not this year's. Continuing Resolutions force the Department 
to operate inefficiently because it does not know what projects will be 
funded or at what level of funding. The money provided in the 
Continuing Resolution does not provide sufficient funding in the right 
places, particularly critical operating accounts which could harm 
military readiness. In addition, Continuing Resolutions generally push 
the Department to use month-to-month contracts and prohibits doing 
``new starts'' in military construction or acquisition programs, which 
leads to inefficiency and backlogs in contracting.
    Question. What do you believe would be the impact on DOD of a full 
sequester in fiscal year 2013?
    Answer. As Secretary Panetta has repeatedly stated, sequestration--
both the size and the arbitrary manner of these cuts--would be 
devastating to the Department. It would harm military readiness and 
disrupt each and every investment program. Based on my assessment to 
date, I share his concerns. I urge Congress to eliminate the sequester 
threat permanently and pass a balanced deficit-reduction plan. Impacts 
of sequester could include the need to revise the defense strategy, 
fewer day-to-day global activities reducing our presence and 
partnerships, less training including cuts to flying and steaming hours 
which would reduce readiness, near universal disruption of investment 
including 2,500 procurement programs, research projects, and military 
construction; reduced and delayed weapons system buys with resulting 
price increases, furloughs and hiring freezes for civilian workers 
resulting in reduced maintenance of weapons systems, oversight of 
contracts and financial systems; negative effects on morale and welfare 
of the force including recruiting and retention problems.
    Question. What is your understanding of the impact that the 
combination of a full-year Continuing Resolution and a sequester would 
have on the readiness of the Armed Forces?
    Answer. It is my understanding that under this scenario, the 
Department would be forced to cut over $40 billion from our budget in a 
little over half a year, using a mechanistic formula to do it. It would 
result in 20 percent cuts in the Department's operating budgets. As the 
Joint Chiefs have warned, such cuts, if allowed to occur, would damage 
our readiness, our people, and our military families. It would result 
in the grounding of aircraft and returning ships to port, reducing the 
Department's global presence and ability to rapidly respond to 
contingencies. Vital training would be reduced by half of current plans 
and the Department would be unable to reset equipment from Afghanistan 
in a timely manner. The Department would reduce training and 
maintenance for nondeploying units and would be forced to reduce 
procurement of vital weapons systems and suffer the subsequent schedule 
delays and price increases. Civilian employees would be furloughed for 
up to 22 days. All of these effects also negatively impact long-term 
readiness. It would send a terrible signal to our military and civilian 
workforce, to those we hope to recruit, and to both our allies and 
adversaries around the world.
    Question. If confirmed what role would you play toward enacting a 
fiscal year 2013 Defense Appropriations Bill and avoiding a sequester?
    Answer. If confirmed, I would continue to urge Congress to pass a 
full-year appropriations bill for DOD and for other Federal agencies so 
that the Department and other Federal agencies may be run efficiently, 
with the ability to adapt to changing circumstances, as the taxpayers 
expect and deserve.
            financial management and business transformation
    Question. DOD spends billions of dollars every year to acquire, 
operate, and upgrade business systems needed to support the warfighter, 
including systems related to the management of contracts, finances, the 
supply chain, and support infrastructure. Despite these expenditures, 
the Department's business systems are stovepiped, duplicative and non-
integrated. Also, the Department's ability to leverage these systems to 
transform how it conducts its business missions has been frustrated by 
its resistance to re-engineering its business processes effectively. As 
a result, the Department remains unable to produce timely, accurate and 
complete information to support management decisions. For this reason, 
the Government Accountability Office (GAO) has identified defense 
financial management and business transformation as exposing taxpayer 
dollars to a ``high risk'' of waste, fraud, and abuse.
    If confirmed, how would you ensure that the financial management 
and business transformation problems of DOD receive priority attention 
at the senior management level and throughout the defense enterprise?
    Answer. Improving financial management capability is very 
important, especially in light of the fiscal challenges facing the 
Department and the country. I understand plans exist to continue the 
improvement of the Department's business processes and, if confirmed, I 
will ensure that senior leadership--including the Chief Financial 
Officer, the Deputy Chief Management Officer, and the Chief Information 
Officer--focus appropriate attention on this effort by holding them 
accountable for progress against these plans.
    Question. Do you support the objective of having the Department 
achieve an auditable financial statement by the end of fiscal year 
2017?
    Answer. Yes. I support the effort and will maintain the 
Department's commitment to producing audit-ready financial statements 
by the congressional deadline of September 2017, with an audit 
beginning by the end of calendar year 2017.
    Question. What steps would you take if the Department fails to 
reach this goal?
    Answer. I would want to evaluate the nature of the problem, the 
reasons the goal was not met, and the remediation options available to 
get the Department back on track before determining the actions to be 
taken.
    Question. Do you support the objective of having the Department 
achieve an auditable statement of budgetary resources by the end of 
fiscal year 2014?
    Answer. Yes, I agree with current priorities that focus first on 
the budgetary information most useful in managing the Department. I 
understand there is a plan to ensure the budgetary statement is ready 
to be audited by September 2014.
    Question. What steps would you take if the Department fails to 
reach this goal?
    Answer. I understand the plan to meet that deadline has received a 
very high priority at all levels of the Department, and if confirmed, I 
would sustain this as a high priority and hold senior leadership 
accountable for reaching this goal. If problems are encountered that 
would put this goal at risk, I would evaluate the nature of the 
problem, the reasons the goal was not met, and the remediation options 
available to get the Department back on track. I would also ensure that 
Congress is kept apprise of the Department's progress.
 department of defense and department of veterans affairs collaboration
    Question. The Departments of Defense and Veterans Affairs (VA) have 
in recent years increased collaboration between the respective 
departments to support servicemembers as they transition to veteran 
status. This support includes access to health and mental health care, 
improved disability evaluation, and coordination of compensation and 
other benefits.
    If confirmed, what role would you expect to play in ensuring that 
the Departments of Defense and Veterans Affairs achieve the 
administration's objectives in DOD and VA collaboration?
    Answer. I have been working to improve the transition of our 
servicemembers to civilian life for most of my life. If confirmed, I am 
looking forward to taking a very active role in this area. The 
Department of Veterans Affairs Secretary Eric Shinseki is a longtime 
friend and if confirmed, I will continue the close partnership with him 
that has existed under Secretaries Gates and Panetta. I will continue 
the practice of holding regular Secretarial-level meetings and will 
closely monitor the progress of the many important joint initiatives 
between the two Departments.
                systems and support for wounded warriors
    Question. Servicemembers who are wounded or injured in combat 
operations deserve the highest priority from their Service for support 
services, healing and recuperation, rehabilitation, evaluation for 
return to duty, successful transition from active duty if required, and 
continuing support beyond retirement or discharge. Yet, as the 
revelations at Walter Reed Army Medical Center (WRAMC) in 2007 
illustrated, the Services were not prepared to meet the needs of 
significant numbers of returning wounded servicemembers. Despite the 
enactment of legislation and renewed emphasis, many challenges remain, 
including a growing population of servicemembers awaiting disability 
evaluation.
    What is your assessment of the progress made to date by DOD and the 
Services to improve the care, management, and transition of seriously 
ill and injured servicemembers and their families?
    Answer. I believe that important progress in the care, management, 
and transition of seriously ill and injured servicemembers has been 
made in the years since the revelations at WRAMC, though there is more 
work to be done. It will be a top priority to ensure the best quality 
care for our seriously ill and injured servicemembers and their 
families. My understanding is Secretary Panetta directed a detailed 
review of the Integrated Disability Evaluation System (IDES). If 
confirmed, I look forward to the opportunity to reviewing the details 
of that effort. I will also work closely with the Secretary of Veterans 
Affairs to ensure that the Departments of Defense and Veterans Affairs 
programs are fully complementary and that wounded servicemembers 
experience a seamless system of care as they transition to veteran 
status.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. My understanding is that significant progress has been made 
in linking an individual with their medical record in a central data 
repository, and making this information available to any DOD medical 
treatment facility or Veterans Affairs facility. This appears to 
provide seamless health care to our members. If confirmed, I will 
continue to partner with the VA in this area. Although I believe there 
is more work to be done in improving the care of our seriously ill and 
injured servicemembers and their families, this issue is a top priority 
of the senior leadership of the Department and a strength that I will 
continue to build on. I will also look to build on the close 
collaboration between the Departments of Defense and Veterans Affairs 
in caring for our servicemembers, veterans, and their families.
    Question. What are the weaknesses that need to be corrected?
    Answer. One weakness is the lack of sufficient mental health care 
providers at both the Departments of Defense and Veterans Affairs. 
While this is mostly a function of the overall shortage of people with 
this specialty, I know DOD is working hard to address this problem, 
through increased funding and recruitment. Another weakness that I am 
aware of is that Veterans Affairs and DOD have multiple caregivers, 
overwhelming patients and their families. I understand Secretary 
Panetta and Secretary Shinseki signed an agreement to help wounded 
warriors navigate through our systems, by naming a lead care 
coordinator for each wounded warrior. If confirmed, I will closely 
monitor the implementation of this agreement and work to improve upon 
it. There is also duplication and overlap in the various services and 
care programs provided by the Department, the Military Services, and 
Veterans Affairs, and I would want to make sure that all such programs 
are fully coordinated, easily accessible, and comprehensible for our 
wounded, ill, and injured servicemembers and their families.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. If confirmed, I would look to build on innovative programs 
and partnerships--both with other Federal agencies, as well as with 
State and local governments and private and community organizations--
that support our wounded, ill, and injured servicemembers and their 
families. For instance, the Intrepid Fallen Heroes Fund has added 
invaluably to the care and treatment of servicemembers and veterans 
with traumatic brain injury (TBI) and psychological health issues 
through the National Intrepid Center of Excellence, and they are in the 
process of building state-of-the-art satellite treatment centers at 
nine of DOD's largest installations. I am also heartened by cross-
agency efforts like the $100 million investment announced last year by 
the Departments of Defense and Veterans Affairs to improve diagnosis 
and treatment of mild TBI and Post-Traumatic Stress Disorder.
    Question. What is your assessment of the adequacy of access to care 
and care management for Federal civilian employees who are ill or 
injured in theater, including evaluation and response to traumatic 
brain injury and post-traumatic stress?
    Answer. My understanding is that Federal civilian employees who are 
injured or ill in theater have been treated by theater military 
treatment facilities just as Active Duty members would be. Once 
medically evacuated out of theater, depending on their medical needs, 
they are transferred to an appropriate civilian institution. If 
confirmed, I would seek to ensure that Federal civilian employees in 
theater receive the quality care and care management befitting those 
who put themselves in harm's way on behalf of the Nation.
    Question. Studies conducted as a result of the revelations at WRAMC 
pointed to the need to reform the disability evaluation system (DES). 
The IDES was established to integrate the DOD and Department of 
Veterans Affairs disability systems to improve and expedite processing 
of servicemembers through the DES.
    What is your assessment of the need to further streamline and 
improve the IDES?
    Answer. While the introduction of the joint IDES has on the whole 
been an improvement over the separate Departments of Defense and 
Veterans Affairs legacy systems, there is still much room for further 
improvement, particularly with regard to timeliness. If confirmed, I 
will ensure the Department continues to press forward, in close 
collaboration with Veterans Affairs, with further improvements to the 
IDES.
    Question. If confirmed, how will you address any need for change, 
particularly the Army's problem with an increasing number of soldiers 
who are not medically fit for deployment, but who remain on Active Duty 
while they process through the lengthy IDES process?
    Answer. I am aware that this is an issue, particularly for the 
Army. I do not have specific recommendations at this time, but if 
confirmed, I will work with the leadership of the military services on 
ways that we can better balance the need to provide servicemembers with 
a timely and fair disability evaluation with the need to maintain 
acceptable levels of deployable personnel.
                       homosexual conduct policy
    Question. The law commonly referred to as ``Don't Ask, Don't Tell'' 
was repealed effective September 20, 2011. As part of the 
implementation of this repeal, the Secretary of Defense appointed a 
benefits review group to conduct a review of all potential benefits 
that could be made available to same-sex spouses. The report of this 
review group is long overdue and has been repeatedly delayed.
    What is your view of the repeal of ``Don't Ask, Don't Tell?''
    Answer. I fully support the repeal of ``Don't Ask, Don't Tell'' and 
value the service of all those who fight for our country. I fully 
support gay and lesbian men and women serving openly in the U.S. 
military and am committed to a full implementation of the repeal of 
``Don't Ask, Don't Tell''.
    Question. What is your assessment of the implementation of the 
repeal of this law?
    Answer. I understand that the senior military leadership have 
engaged in a year-long monitoring process and found that repeal of 
``Don't Ask, Don't Tell'' has not had any impacts on readiness, 
effectiveness, unit cohesion, recruiting, and retention. At the same 
time, I realize that there is still some work to be done to achieve the 
full implementation of repeal, particularly with regard to the benefits 
available to the families of gay and lesbian servicemembers.
    Question. What is the status of the report of the benefits review 
group? When is this group expected to issue its report?
    Answer. I understand that this review is not taking the form of a 
report, per se, but has involved assembling detailed information on 
individual benefits (including whether each such benefit might be made 
available under current law, and options for how to do so) to support 
decision making by the senior civilian and military leadership of the 
Department, and also that those decisions are currently under active 
consideration. If confirmed, I will review the work that has been 
undertaken during the course of the benefits review and will work 
closely with the DOD civilian and military leadership to move forward 
expeditiously on this issue.
    Question. What is your view on the issue of providing military 
benefits to same-sex partners?
    Answer. As I have stated previously, I fully support the repeal of 
``Don't Ask, Don't Tell,'' and value the service of all those who fight 
for our country. If confirmed, I will do everything possible to the 
extent permissible under current law to provide equal benefits to the 
families of all our servicemembers.
    Question. If confirmed, will you ensure that completion of the 
report of the Benefits Review Group is expedited and provided to 
Congress?
    Answer. If confirmed, I will work closely with the DOD civilian and 
military leadership to move forward expeditiously on this issue and 
will inform the appropriate congressional committees of decisions as 
they are made.
                          religious guidelines
    Question. The Independent Review Related to the Tragedy at Fort 
Hood observed that ``DOD policy regarding religious accommodation lacks 
the clarity necessary to help commanders distinguish appropriate 
religious practices from those that might indicate a potential for 
violence or self-radicalization.'' Recommendation 2.7 of the Final 
Recommendations urged the Department to update policy to clarify 
guidelines for religious accommodation and Recommendation 2.8 urged the 
Department to task the Defense Science Board to ``undertake a multi-
disciplinary study to identify behavioral indicators of violence and 
self-radicalization. . . .''
    What is your view of these recommendations?
    Answer. Ensuring appropriate accommodations for the free exercise 
of religions and protecting servicemembers from violence and harm are 
both of vital importance. It is my understanding that, pursuant to 
Recommendation 2.7, the Department updated its policy on religious 
accommodation to ensure religious freedoms and practices are 
accommodated to the fullest extent possible considering mission 
readiness, discipline, and unit cohesion. Regarding Recommendation 2.8, 
the Department did task the Defense Science Board (DSB) to undertake a 
study. The DSB recently completed their study and found that it could 
not determine a specific list of behaviors that would indicate risk of 
violent/extremist behavior. If I am confirmed, I will review the 
implementation of the recommendations of the Fort Hood Review.
    Question. What is your understanding of current policies and 
programs of DOD regarding religious practices in the military?
    Answer. It is my understanding that policies and programs of DOD 
regarding religious practices in the military seek to ensure 
servicemembers' rights to observe the tenets of their respective 
religions, as well as to hold no specific religious conviction or 
affiliation.
    Question. In your view, do these policies appropriately accommodate 
the free exercise of religion and other beliefs without impinging on 
those who have different beliefs, including no religious belief?
    Answer. Yes, in my view, current policies appropriately accommodate 
the free exercise of religion for all servicemembers in the pluralistic 
environment that is the U.S. military. If confirmed, I will continue to 
monitor and assess these policies.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. It is my understanding that existing policies provide the 
military chaplains with sufficient guidance that allows them to 
balance, in both formal and informal settings, their own faith 
practices with the rights of others who may hold different or no 
religious beliefs. I recognize that this at times can be a difficult 
balance to achieve, and if confirmed, I would work with the civilian 
and military leadership of the Department and with Congress to ensure 
DOD continues to do so.
    Question. If confirmed, will you work to ensure that a scientific 
factbased approach to understanding radicalization will drive the 
Department's relevant policies on this topic?
    Answer. Yes. If confirmed, I would review the Department's existing 
policies and its plans to address these challenges and determine what, 
if any, changes should be made. I agree that any changes to how the 
Department approaches this issue should be based on a solid scientific 
and factual foundation.
    Question. Current policy in the Department gives discretion to 
military leaders to decide whether requests to waive uniform and 
appearance standards should be granted based on religious beliefs.
    In your view, do DOD policies appropriately accommodate religious 
practices that require adherents to wear items of religious apparel?
    Answer. It is my understanding that current policies allow for 
consideration of accommodations of religious apparel that do not 
interfere with the performance of military duties. If confirmed, I 
would work with the Military Services to ensure that they strike the 
right balance between military uniform and appearance standards and 
personal religious practices.
                      muslims in the u.s. military
    Question. Are you concerned that the attack at Fort Hood could lead 
to harassment or even violence against Muslims in the military?
    Answer. The attack at Fort Hood was a tragedy. It is essential that 
the circumstances surrounding the attack not compromise the military's 
core values regarding the free exercise of religion and treating every 
servicemember with dignity and respect. Each servicemember has the 
right to practice his or her religious faith without fear of 
persecution or retribution.
    Question. If confirmed, what strategies would you advocate to 
address the potential for harassment or violence against Muslims in the 
U.S. military?
    Answer. If confirmed, I will not tolerate harassment or 
mistreatment against Muslims in the military, or against any 
servicemember based on their religious faith. This sort of behavior or 
any form of cruelty and maltreatment is inconsistent with the 
military's core values, detracts from combat capability, and has no 
place in the Armed Forces. I will expect commanders and leaders at all 
levels to maintain an environment that promotes dignity and respect, 
and will hold them accountable for preventing harassment or 
mistreatment.
                 sexual assault prevention and response
    Question. Sexual assaults continue to be a significant issue in the 
military. Victims of sexual assault report that they are victimized 
twice: first by attackers in their own ranks and then by unresponsive 
or inadequate treatment for the victim and failure of the chain of 
command to hold assailants accountable. The Annual Report on Sexual 
Harassment and Violence at the Military Service Academies, released in 
December 2012, documents that while the military academies are in 
compliance with DOD policies, sexual assault and harassment remain a 
problem in each academy. Sexual assaults continue to be persistent 
problem in the Services, as evidenced by the ongoing prosecutions of 
military training instructors for sexual misconduct with trainees at 
Air Force basic training at Lackland Air Force Base. Secretary Panetta 
has recently announced several new initiatives to address the sexual 
assault problems in the military, including comprehensive assessments 
of initial training of enlisted personnel and officers, creation of 
special victim capabilities, and limiting initial disposition authority 
to Special Court-Martial Convening Authorities in the grade of O-6 or 
higher.
    What is your assessment of the Department's policies for prevention 
and response to sexual assaults in the military?
    Answer. Sexual assault will absolutely not be tolerated in DOD. It 
is a direct affront to the military's core value to protect all members 
of the Armed Forces. Current levels of sexual assault are unacceptably 
high. I know that the Department has put considerable effort into the 
development and implementation of new policies and procedures to 
prevent the crime of sexual assault, support victims, and hold 
offenders appropriately accountable. But I also know that more needs to 
be done. Secretary Panetta and the Joint Chiefs of Staff have made this 
issue a top priority. If confirmed, will do the same, and ensure that 
the Department continues its commitment to address sexual assault in a 
comprehensive and persistent manner.
    Question. What is your view of the steps the Services have taken to 
prevent and respond to sexual assaults in combat zones, including 
assaults against contractor personnel?
    Answer. I do not have enough information to make a comprehensive 
assessment of sexual assault prevention and response in deployed 
environments at this time. It is my understanding that any deployed 
personnel who are victims, whether servicemembers, civilians, or 
contractors, receive appropriate emergency medical care and support. I 
also firmly believe that there must be strict accountability for those 
who perpetrate such assaults in deployed areas. If confirmed, I will 
ensure the Department continues to address sexual assault in a 
comprehensive manner--across all Services, in all locations, and for 
all personnel.
    Question. What is your view of the adequacy of the training and 
resources the Services have in place to investigate and respond to 
allegations of sexual assault?
    Answer. It is my understanding that all Services have established 
guidelines for a 24-hour, 7-day-a-week sexual assault response 
capability for victims in all locations, including deployed areas. With 
regard to investigations, I understand the Department has multiple 
efforts underway to enhance its ability to investigate and respond to 
sexual assault, child abuse, and domestic violence. If confirmed, I 
will make it a priority to sustain and build on these enhanced 
capabilities for the investigation of ``special victim'' crimes.
    Question. What is your view of the willingness and ability of the 
Services to hold assailants accountable for their acts?
    Answer. I strongly believe that anyone who commits a sexual assault 
in the military needs to be held accountable. The Department has a zero 
tolerance policy, but that is not enough. Accountability is key. To 
this end, I fully support Secretary Panetta's decision to elevate 
initial disposition of sexual assault cases to the level of Colonel or 
Navy Captain, or higher. This action helps ensures our more seasoned, 
senior commanders determine what actions are appropriate in response to 
allegations of sexual assault. It is my belief that military commanders 
are essential to making sexual assault prevention and response efforts 
successful. But in order to hold assailants accountable, we must have 
victims who are willing to come forward and report these crimes. To do 
that, victims need to have confidence in our system of military 
justice. That is why I also look forward to hearing more about the 
impact of the Air Force's pilot program assigning an attorney to each 
victim of sexual assault who requests one to represent them. I believe 
this could be a very good way to increase the number of victims who are 
willing to come forward.
    Question. If confirmed, what actions will you take to ensure senior 
level direction and oversight of efforts to prevent and respond to 
sexual assaults?
    Answer. If confirmed, I will make sexual assault prevention and 
response a personal priority and will work closely with the Secretaries 
of the Military Departments and the Chiefs of the Military Services to 
ensure that DOD maintains the current high level of senior leadership 
focus on this issue.
              increased use of national guard and reserves
    Question. Over the last 2 decades, the National Guard and Reserves 
have experienced their largest and most sustained employment since 
World War II. Numerous problems have arisen over time in the planning 
and procedures for mobilization and demobilization, e.g., inadequate 
health screening and medical response to service-connected injuries or 
illnesses, antiquated pay systems, limited transition assistance 
programs upon demobilization, and inefficient policies regarding 
members of the Individual Ready Reserve. Reserve Force management 
policies and systems have been characterized in the past as 
``inefficient and rigid'' and readiness levels have been adversely 
affected by equipment shortages, cross-leveling, and reset policies. 
The recently enacted section 12304b of title 10, U.S.C., authorizes 
Service Secretaries to mobilize for up to 365 consecutive days Reserve 
component units and individuals in support of pre-planned combatant 
command missions. Current defense strategy provides for a reduction in 
conventional ground forces, an increase in special forces, and the 
establishment of a rotational presence in Europe, the Middle East, and 
anywhere U.S. interests are threatened. Some in the press have called 
this a ``lily pad'' approach, and it potentially dovetails with an 
operational view of the Reserve components.
    What is your assessment of the Reserve and how it will fit into 
this new strategy of smaller, more lethal forces rotating into and out 
of many locations of strategic interest?
    Answer. The Reserves and National Guard have clearly proven the 
ability to accomplish any assigned mission overseas or at home. They 
will continue to play a vital role as we move out of the past decade of 
war in Iraq and Afghanistan and the Department shapes the force to 
implement the new defense strategy and to respond to the challenges of 
a new era.
    Question. What is your understanding of the appropriate size and 
makeup of the Reserve components in light of the current defense 
strategy?
    Answer. I understand that questions about the size and makeup of 
the Active and Reserve components are currently under consideration as 
the Department continues to implement the new defense strategy and 
respond to the current fiscal environment. If confirmed, I will work 
closely with the Services and the Chief of the National Guard Bureau to 
determine the most effective mix and makeup of Active, Reserve, and 
Guard personnel to support the defense strategy.
    Question. What is your assessment of advances made in improving 
Reserve and Guard component mobilization and demobilization procedures, 
and in what areas do problems still exist?
    Answer. I understand that there have been many advances made in 
policies and procedures governing the utilization of the Guard and 
Reserves, as well as advancing the pre- and post-Active Duty benefits. 
These have given Reserve component personnel the ability to plan for 
periods of utilization followed by substantial time performing inactive 
duty at home. This provides a predictable cycle of Active Duty and 
increases readiness by utilizing the Reserve components on a more 
regular basis. If confirmed, I will ensure these procedures are 
continually assessed to ensure they are providing the Reserve 
components the support they need and deserve.
    Question. What do you consider to be the most significant enduring 
changes to the enabling of an operational reserve aimed at ensuring 
Reserve component and Guard readiness for future mobilization 
requirements?
    Answer. In my view, the most significant and enduring change in 
this area has been the use of the Reserve component as a full partner 
in the overall force at large. In particular, the experience and skills 
that members of the Reserve component have gained from preparing and 
deploying over the past decade have notably increased the overall 
readiness of the Reserve component, and the Department will continue to 
make use of these enhanced skills and readiness in the future.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves or 
to further enhance their ability to perform various national security 
missions?
    Answer. I appreciate Congress' willingness in the NDAA for Fiscal 
Year 2012 to increase authorities to fully use the Reserves as a 
rotational force. If confirmed, I will consider this question in light 
of the new strategy, but at the present time I believe that appropriate 
policies and procedures are in place and no laws need to be changed.
                               dwell time
    Question. While dwell time is improving as our forces draw down in 
Afghanistan, many Active Duty military members are still not 
experiencing the dwell time goal of 2 years at home for every year 
deployed.
    In your view, when will the Active component dwell time goal be 
met?
    Answer. I understand that all of the Services, on average, are 
meeting or exceeding the Department's dwell time goal of 2 years at 
home for every year deployed, or 1:2, for the Active component. If 
confirmed, I will continue to monitor this issue closely.
    Question. When will dwell time objectives be met for the Reserve 
components?
    Answer. I understand Reserve component dwell time is improving, but 
has not reached the Department's dwell time goal of 5 years at home for 
every 1 year of active duty, or 1:5. If confirmed, I will continue to 
work toward the goal of a 1:5 dwell time ratio for the Reserve 
component for all of the Services.
             active-duty and reserve component end strength
    Question. The Department last year announced its 5-year plan to 
reduce Active Duty end strengths by over 100,000 servicemembers by 
2017, and the Reserve components by another 21,000 over the same 
period. These cuts do not include any additional personnel reductions 
that could result from sequestration or any agreement to avoid 
sequestration.
    Do you agree with this plan to reduce Active Duty and Reserve 
component end strengths?
    Answer. If confirmed, I will review the plan, but I believe that we 
must be able to balance end-strength, readiness, and modernization. The 
end strength drawdown allows us to achieve the right size force and 
keep it modern. The plan is designed to maintain capable and ready 
military forces while managing reductions in a way that ``keeps faith'' 
with servicemembers who have been at war for the past 10 years. While 
the plan will reduce Active Duty end strength by 100,000, I believe the 
Department has scaled back the Reserve component cut to less than 
21,000 (17,000). Preserving the Guard and Reserve reduces the risk of 
reductions and hedges against uncertainty by providing capacity and 
capability that can be called up if needed. As future national security 
conditions change, the Department's planned drawdown could change 
accordingly.
    Question. What is your view of how these planned end-strength 
reductions will affect dwell time ratios?
    Answer. The Army and Marine Corps end strength reductions are 
synchronized with plans for the drawdown in Afghanistan. The 
Department's dwell time goal is 1:2 Active, 1:5 for Reserves. With some 
exceptions, the current dwell is 1:1 Active, 1:5 Reserve. If the 
Afghanistan force drawdown stays on track, the duty/dwell ratio goal 
for components should be achieved. If confirmed, I will carefully 
monitor the dwell time of our servicemembers since it is critical that 
dwell times be sufficient to preserve the wellbeing of our force.
    Question. What effect would inability to meet dwell time objectives 
have on your decision to implement the planned end strength reductions?
    Answer. Preserving the All-Volunteer Force is a top priority, so it 
is important to avoid stressing the Active and Reserve components. If 
confirmed, I would assess our ability to achieve our strategic missions 
and dwell time objectives prior to and during implementation of the 
planned Army and Marine Corps strength reductions.
    Question. What additional military personnel reductions do you 
envision if the Department were required to sequester funding as 
outlined in the BCA?
    Answer. The President notified Congress of his intent to exempt all 
military personnel accounts from sequester for fiscal year 2013, if a 
sequester is necessary. However, if the Department were required to 
sequester funding, I believe that it would first require a revision of 
the Defense Strategic Guidance announced by the President last January. 
The current strategy could not be met with the significantly diminished 
resources that sequester would impose. The revised strategy could very 
well impact all components of our workforce--Government civilians and 
contractors in the near-term as well as Active Duty and Reserve 
component military if the sequester continues beyond fiscal year 2013.
    Question. In your view, what tools do the Department and Services 
need to get down to authorized strengths in the future, and which of 
these require congressional authorization?
    Answer. The workforce management tools that Congress provided in 
the NDAA for Fiscal Year 2013 will be useful for the drawdown. The 
Department continues to examine whether other workforce management 
authorities are needed and will submit those to Congress as necessary. 
In addition, in the event that the Department has to sequester funding, 
the Department would likely revisit the size of all components of the 
workforce--Active Duty military, Reserve component military, Government 
civilians, and contractors. After such a review, the Department might 
require, and would then request, additional authorization for tools to 
meet reduced end strength goals.
                          recruiting standards
    Question. Recruiting highly qualified individuals for military 
service during wartime in a cost-constrained environment presents 
unique challenges.
    What is your assessment of the adequacy of current standards 
regarding qualifications for enlistment in the Armed Forces?
    Answer. Today's enlistment qualification standards are well-
defined, supported by years of experience, and have stood the test of 
time. They are driven by the need to provide the Services with men and 
women who are prepared to adapt to the rigors of military life and meet 
performance requirements. The adequacy of these standards is evidenced 
by over 11 years of continuous armed conflict manned by a high quality 
All-Volunteer Force.
    Question. In your view, is there any way to increase the pool of 
eligible enlistees without sacrificing quality?
    Answer. My understanding is the Services are always exploring ways 
to improve their ability to expand the recruiting market without 
sacrificing quality. As an example, this year the Department expanded 
its ability to enlist graduates with alternative diplomas while 
minimizing first term attrition. The Services also may be able to 
augment their screening procedures by incorporating other measures, 
such as temperament, to identify applicants who are likely to adapt 
well to the military. If confirmed, I will work with the Services to 
continually find new ways to expand the recruit market.
                         women in the military
    Question. The issue of the appropriate role of women in the Armed 
Forces is a matter of continuing interest to Congress and the American 
public. Last year, DOD released a report to Congress, required by 
section 535 of the Ike Skelton National Defense Authorization Act 
(NDAA) for Fiscal Year 2011 (Public Law 111-383), reviewing the laws 
and policies restricting the service of female members of the Armed 
Forces, and provided notice to Congress that the Department would open 
positions in ground combat units at the battalion level to women in 
occupational specialties for which they are already qualified to serve, 
and would eliminate the so-called co-location policy. According to the 
report, the changes resulted in over 14,000 positions being opened to 
women that were previously denied. Since then, the Marine Corps opened 
training positions at its Infantry Officer course to female marines, 
and the Army recently announced opening some special operation aviation 
positions to female servicemembers.
    What is your view of the appropriate role for women in the Armed 
Forces?
    Answer. Women are indispensable to our military. They have served 
ably alongside their male counterparts in Iraq and Afghanistan in a 
variety of roles. I support the expansion of opportunities for women to 
serve. If confirmed, I will ensure that the process of opening 
previously closed positions takes place expeditiously and at the same 
time that our readiness and ability to defend the Nation are not 
compromised by these changes.
    Question. Do you believe additional specialties should be opened up 
for service by women? If so, which specialties?
    Answer. On January 24, 2013, Secretary Panetta rescinded the 1994 
Direct Ground Combat Definition and Assignment Rule and directed the 
integration of women into previously closed positions by January 1, 
2016. If confirmed, I will continue implementation of that new policy, 
including its emphasis on the effectiveness of the fighting force and 
the development of gender-neutral standards.
    Question. Do you believe any changes in the current policy or 
legislation regarding women in combat are needed or warranted?
    Answer. I am not aware of further necessary changes at this time. 
If confirmed, I will closely monitor the implementation of the January 
24, 2013 policy and if I see that additional policies or legislation 
are needed, I will make recommendations.
                      rising costs of medical care
    Question. In testimony presented to Congress in February, 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April 2009, Secretary Gates told an audience at Maxwell Air Force 
Base that ``health care is eating the Department alive.'' In recent 
years, the Department has attempted to address the growth in overall 
health care costs through various fee increases on military retirees.
    What reforms in infrastructure, benefits, or benefit management, if 
any, do you think should be examined in order to control the costs of 
military health care?
    Answer. It is essential that the Department take steps to control 
the costs of military healthcare while ensuring it continues to provide 
for our military personnel, their families, and retirees. I understand 
the Department included proposals in the fiscal year 2012 and 2013 
President's budgets that would slow the growth of healthcare costs 
while preserving the quality and range of health care. These proposals 
include increasing enrollment fees and deductibles for retirees and 
increasing pharmacy co-pays. Not many of these proposals were accepted 
by Congress. If confirmed, I will review initiatives in this area and 
look for further opportunities as we must continue to look for savings 
in this area.
    Question. What is your assessment of the long-term impact of rising 
medical costs on future DOD plans?
    Answer. As I understand the situation, health care consumes nearly 
10 percent of the Department's budget and could grow considerably over 
the next decade, taking an ever larger bite out of our ability to 
invest in enhanced warfighting capability. However, I realize that the 
healthcare benefit is a key component of retention for our men and 
women in uniform so I will work closely with the military and civilian 
leadership in the Department to find reasonable and responsible ways to 
stem this growth without breaking faith with our servicemembers, their 
families, and retirees.
    Question. If confirmed, what actions would you initiate or 
recommend to mitigate the effect of such costs on the DOD top-line?
    Answer. I cannot make specific recommendations at this time. If 
confirmed, I am committed to continuing to review military health care. 
Any changes must keep the faith with our troops, be transparent, 
preserve the quality and range of health care, and protect wounded 
warriors, medically-retired, and the families of those who died on 
Active Duty. Given today's budget environment, we must continue to look 
for savings opportunities, and this should include military health 
care.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel and related 
entitlement spending continues to grow and is becoming an ever 
increasing portion of the DOD budget.
    What actions do you believe can and should be taken, if any, to 
control the rise in personnel costs and entitlement spending?
    Answer. I understand personnel and entitlement costs make up a 
significant portion of the Department's budget and have risen sharply 
over the past 10 years. The Department has proposed several initiatives 
in an attempt to slow the rate of growth while continuing to attract 
and retain the right number and quality of personnel. If confirmed, I 
am committed to exploring options to find savings and more efficient 
alternatives to help control the rise in personnel and entitlement 
costs while still fully supporting the All-Volunteer Force.
    Question. In your view, can the Department and the Services 
efficiently manage the use of bonuses and special pays to place high 
quality recruits in the right jobs without paying more than the 
Department needs to pay, or can afford to pay, for other elements of 
the force?
    Answer. I understand that targeted bonuses and special pays are 
very effective tools for achieving the Department's personnel strength 
and quality objectives and are generally much more cost-effective than 
across-the-board pay increases. Like any compensation program, these 
tools must be continually monitored to ensure they are used both 
efficiently and effectively and that the Department is receiving best 
value for its dollars.
            military compensation and retirement commission
    Question. The NDAA for Fiscal Year 2013 establishes a commission to 
review all elements of the military compensation and retirement systems 
and to make recommendations to modernize those systems to ensure the 
long-term viability of the All-Volunteer Force, enable a high quality 
of life for military families, and to achieve fiscal sustainability for 
the compensation and retirement systems.
    Do you agree with the need for a comprehensive study of the 
military compensation and retirement systems?
    Answer. I believe it is appropriate to perform a comprehensive 
review of the military compensation and retirement systems to ensure we 
have the right mix of pay and benefits to support our members.
    Question. Do you support the goals of the Commission?
    Answer. Yes. I am committed to ensuring any proposed changes to the 
mix of pay and benefits keep faith with those who are serving today and 
with those who have served in the past.
             dependent care and flexible spending accounts
    Question. The 10th Quadrennial Review of Military Compensation 
recommended providing dependent care and flexible spending benefits to 
Active Duty servicemembers. Providing these benefits would seem 
consistent with the initiatives of First Lady Michelle Obama and Dr. 
Jill Biden on behalf of military families. It would appear that no new 
legislative authority is needed for the Department to provide these 
benefits to servicemembers and their families.
    If confirmed, would you extend these benefits to the Active Duty 
servicemembers and their families?
    Answer. Taking care of our servicemembers and their families is a 
top priority of DOD. If confirmed, I will examine the option of 
flexible spending accounts for military families to determine if they 
are an appropriate part of our extensive benefits package for 
servicemembers and their families in this time of fiscal austerity.
             suicide prevention and mental health resources
    Question. The numbers of suicides in each of the Services continues 
to concern the committee. The Army released a report in July 2010 that 
analyzed the causes of its growing suicide rate and examined disturbing 
trends in drug use, disciplinary offenses, and high risk behaviors. In 
addition studies conducted by the Army, of soldiers and marines in 
theater, showed declines in individual morale and increases in mental 
health strain, especially among those who have experienced multiple 
deployments.
    In your view, what role should DOD play in shaping policies to help 
prevent suicides both in garrison and in theater and to increase the 
resiliency of all servicemembers and their families, including members 
of the Reserve components?
    Answer. Suicides by military members are tragic--every suicide is 
one too many. It is a a complex problem that plagues our entire 
society--there are no easy answers or quick solutions. I think 
Secretary Panetta put it best when he said that suicide is perhaps the 
most frustrating challenge he has come across as Secretary of Defense. 
I believe that DOD must take a multi-faceted approach to preventing 
suicides that involves leadership responsibility, access to quality 
behavioral health care, efforts to improve mental fitness and 
resiliency, and increased research on causes and means of preventing 
suicide. If confirmed, I will push for enhancements to DOD's policies 
and programs in each of these areas.
    Question. What is your understanding of the action that the Office 
of the Secretary of Defense and the Army are taking in response to the 
July 2010 Army report, and the data in Chapter 3 in particular?
    Answer. My understanding is that the Department has taken multiple 
actions to address the rise of suicides since the release of the Army's 
July 2010 report as well as the report of the DOD Suicide Prevention 
Task Force in September 2010. In particular, in November 2011, the DOD 
established the Defense Suicide Prevention Office to serve as the 
oversight authority for the implementation, standardization, and 
evaluation of suicide and risk reduction programs and policies.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to the servicemembers and their families upon return to 
home station?
    Answer. I am firmly committed to implementing the President's 
Executive Order on ``Improving Access to Mental Health Services for 
Veterans, Servicemembers, and Military Families.'' I look forward to 
reviewing the 12-month national suicide prevention campaign that DOD 
and VA are developing as part of the implementation of this Executive 
Order and will ensure that DOD does all it can to ensure that it is 
providing sufficient, high-quality behavioral health care to 
servicemembers and their families.
                        military quality of life
    Question. The committee is concerned about the sustainment of key 
quality of life programs for military families, such as family support, 
child care, education, employment support, health care, and morale, 
welfare and recreation services, especially as DOD faces budget 
challenges.
    How do you perceive the relationship between military recruitment 
and retention and quality-of-life improvements and your own top 
priorities for the Armed Forces?
    Answer. Quality-of-life programs that address family readiness 
needs must be available to families of our military members wherever 
they may be located. Changes in our basing, deployment patterns, and 
force structure, as we implement our new strategy and respond to the 
current fiscal environment, will pose some additional challenges in 
delivering these programs. If confirmed, I will closely monitor the 
impacts of such changes to ensure the needs of our military families 
continue to be met.
    Question. If confirmed, what further enhancements to military 
qualify of life would you consider a priority, and how do you envision 
working with the Services, combatant commanders, family advocacy 
groups, and Congress to achieve them?
    Answer. I recognize that the well-being of the force, as well as 
recruiting and retention efforts, are significantly impacted by quality 
of life programs. I look forward to working with Congress, family 
advocacy groups, the Services, and combatant commanders to ensure we 
have a comprehensive, accessible, and affordable suite of programs.
                      family readiness and support
    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families?
    Answer. It is the Department's responsibility to help prepare 
military families to cope with the challenges inherent with military 
service. In order to build and sustain resilient military families, the 
Department must continuing to focus on programs that enhance their 
social, financial, educational, and psychological well-being.
    Question. If confirmed, how would you ensure that family readiness 
needs are addressed and adequately resourced?
    Answer. Sustaining family programs in the current fiscally 
constrained environment will be challenging, but it is of vital 
importance. If confirmed, I will seek to protect funding for family 
readiness programs to the greatest extent possible and will examine all 
such programs to ensure that they are operating efficiently so that 
available resources are going to their best and most effective uses.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and future reductions in end 
strength?
    Answer. Changes in our basing, deployment patterns, and force 
structure, as we implement our new strategy and respond to the current 
fiscal environment, will pose some additional challenges to maintaining 
family readiness. If confirmed, I will closely monitor the impacts of 
such changes to ensure the needs of our military families continue to 
be met.
    Question. If confirmed, how would you ensure support is provided to 
Reserve component families related to mobilization, deployment and 
family readiness, as well as to Active Duty families who do not reside 
near a military installation?
    Answer. I believe that DOD has a responsibility to ensure access to 
quality programs, information and resources to families, regardless of 
their location. Military OneSource is an excellent example of a 
resource that is not tied to location, but allows families to access 
information and referral by the internet or by phone with live 
consultants available 24-hours-a-day, 7-days-a-week. Maintaining a 
strong network of community-based providers, and partnerships with 
State and local governments are also key in ensuring local resources 
are readily available to servicemembers and their families, 
particularly Reserve component families and Active component families 
who do not live near a military installation. If confirmed, I will 
evaluate these programs to ensure we are meeting the needs of these 
military families.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. I believe there are opportunities to improve the efficiency 
and accessibility of the resources and programs that DOD, other Federal 
agencies, State and local governments, and community organizations 
provide to support servicemembers and their families. If confirmed, I 
will explore these opportunities and how we can better coordinate 
efforts among the various entities providing family support.
                       detainee treatment policy
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Yes. reciprocity is a critical component and underlying 
value of our detainee treatment policies. As a Vietnam veteran, I also 
view this principle of reciprocity as a way to protect our U.S. 
soldiers, sailors, airmen, or marines, should they be captured in 
future conflicts.
         coordination with the department of homeland security
    Question. After the terrorist attacks on September 11, 2001, 
Congress established the Department of Homeland Security (DHS), and DOD 
established the U.S. Northern Command and an Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs.
    What is your assessment of the current situation regarding 
cooperation and coordination between DOD and DHS on homeland security 
and civil support matters, and what will be your goals in this regard 
if you are confirmed?
    Answer. Recent disaster responses, including the Department's 
efforts in response to Hurricane Sandy, show that DOD and DHS have a 
strong relationship. This success is a result of active engagement the 
Department has at all levels with DHS and many other of the 
Department's domestic interagency partners. Elements of the Department 
work very closely on a daily basis with the Federal Emergency 
Management Agency (FEMA), the U.S. Secret Service, the U.S. Coast 
Guard, and U.S. Customs and Border Protection. The Department and DHS 
have successfully exchanged liaison and coordination staff officers to 
cement this collaborative approach at the working level. While a Member 
of Congress I voted to establish the DHS and have been pleased to see 
its success. If confirmed, my goal would be to continue to bolster the 
strong relationship between the Departments of Defense and Homeland 
Security.
    Question. Do you believe the current mechanism for DOD to respond 
to the needs of domestic government agencies for DOD support in the 
event of a natural or manmade disaster is appropriate, or do you 
believe it needs to be modified?
    Answer. The mechanisms for the Department to respond to the needs 
of domestic agencies appear to be working effectively. It is my 
understanding that the Department acted on 60 requests for assistance 
from FEMA during the Hurricane Sandy response last year, including 
helping to restore power, providing millions of gallons of fuel for 
first responders and residents, and removing water from the Brooklyn 
Battery tunnel, the longest underwater tunnel in North America. I 
understand that the Department also responded to some 21 other requests 
for assistance from FEMA for a variety of other disasters in 2012, as 
well as providing assistance to other Federal agencies, including the 
U.S. Forest Service for wildland firefighting and the U.S. Secret 
Service for protection of the President during special events such as 
the recent Inauguration. If confirmed, I will work with the 
Department's partner agencies to ensure that the current mechanisms 
remain effective and, where opportunities arise, pursue improvements.
                          iraq lessons learned
    Question. Did you agree with the President's decision on the 
withdrawal of U.S. military forces from Iraq? If so, why? If not, why 
not?
    Answer. Yes. I supported the withdrawal of all U.S. forces from 
Iraq by December 2011 in accordance with the November 2008 U.S.-Iraq 
Security Agreement. It was the right decision. Our military men and 
women in uniform had completed their mission. We now have a strong 
relationship with a sovereign Iraq. Our drawdown has allowed us to 
advance our strategic partnership based on mutual interests and mutual 
respect.
    Question. In your view, what aspects, if any, of the departure/
drawdown of U.S. forces would you have modified?
    Answer. I would not have modified the withdrawal of all U.S. combat 
forces by December 2011. I believe that the deadline helped the Iraqi 
Security Forces step up and take responsibility for the security of 
their people. This has allowed us to deepen our partnership with a 
sovereign Iraq, based on mutual interests and mutual respect.
    Question. What do you believe are the major lessons learned from 
the Iraq invasion and the follow-on efforts to stabilize the country 
through 2011?
    Answer. I believe we must think very carefully before we commit our 
Armed Forces to battlefields abroad. Our forces deserve policies and 
planning worthy of the sacrifices they make in combat. Our Nation 
learned a number of lessons in Iraq--from the invasion, to the 
stabilization, to the withdrawal of our forces. These lessons include 
ensuring appropriate planning and preparation for a range of outcomes 
and events, setting clear and realistic strategic objectives, 
appreciating the limitations of military force and the necessity of 
engaging all levels of national power (political, economic, cultural, 
intelligence), recognizing the value and difficulty of building 
partnership capacity, enhancing interagency coordination, and improving 
our oversight of wartime spending and contracting. One of the most 
important lessons is that the U.S. Government must prepare for combat, 
post-combat, and securing the peace. The U.S. military must plan and 
train with civilian counterparts, be prepared to operate effectively in 
all phases of conflict, and improve cultural, linguistic, and 
partnering and advising skills within our force.
    Question. What is your understanding and assessment, if any, of the 
Department's adaptations or changes in policy, programs, force 
structure, or operational concepts based upon these lessons learned?
    Answer. I understand the Department has taken a number of steps to 
institutionalize the lessons from Iraq across policy, doctrine, 
organization, and training. The Department is committed to maintaining 
a focus on cultural and linguistic capabilities as well as the new 
operational approaches in counterterrorism, counterinsurgency, and 
security force assistance. If confirmed, I will work to ensure that the 
Department continues to evaluate and implement lessons learned.
    Question. If confirmed, what additional changes, if any, would you 
propose making to policy, programs, force structure, or operating 
concepts based on the lessons of combat and stability operations in 
Iraq?
    Answer. I do not feel I know enough at this time to provide not 
have additional recommendations. If confirmed, I will study and 
evaluate the Department's efforts to retain and refine the lessons 
learned, expertise, and specialized capabilities that have been 
developed over the past 10 years of counterinsurgency and stability 
operations in Iraq and Afghanistan.
    Question. You called for an international mediator under the 
auspices of the U.N. Security Council to engage Iraq's political, 
religious, ethnic, and tribal leaders. Would you advocate that same 
course of action for Afghanistan?
    Answer. If confirmed, I will closely monitor the Afghan-led 
reconciliation process and make recommendations on any changes I think 
would be helpful. However, within the administration, the Afghanistan 
reconciliation process is led by the Department of State. They are in a 
better position to advise on the need for a U.N. Security Council role.
    Question. Based on the lessons learned during the departure of 
military forces from Iraq, if confirmed, how would you shape U.S. 
enduring presence in Afghanistan in the post-2014 environment?
    Answer. The U.S. presence post-2014 is an issue being discussed 
between the President and the Government of Afghanistan. If confirmed, 
I would work to ensure that the United States retains criminal and 
civil jurisdiction over U.S. forces in the Bilateral Security Agreement 
now under negotiation; if it does not, I will not support a continued 
U.S. military presence.
               stability and counterinsurgency operations
    Question. The January 2012 DOD Strategic Guidance called for U.S. 
forces to be ready to conduct limited counterinsurgency and other 
stability operations if required, and to retain and continue to refine 
the lessons learned, expertise, and specialized capabilities that have 
been gained over the past 10 years of operations in Iraq and 
Afghanistan. At the same time, the Strategic Guidance states that, 
``U.S. forces will no longer be sized to conduct large-scale, prolonged 
stability operations.''
    In your view, how should strategic guidance for DOD manage risk and 
articulate the types of missions or operations U.S. forces will or will 
not be expected to execute or accomplish?
    Answer. The Department's strategic guidance documents should set 
clear priorities that enable senior Departmental leadership to 
determine appropriate trade-offs in military missions and force 
structure. Senior leadership deliberation on these trade-offs should be 
informed by a comprehensive, strategic understanding of risk to our 
defense and national security objectives. As strategy is implemented, 
the Department should continue to test it to determine areas of risk 
and develop mitigation options. If confirmed, I will aim to have any 
risk the Department bears be both manageable and acceptable; although 
budget uncertainty will make this a difficult task.
    Question. In your view, what are the appropriate roles and 
responsibilities, if any, between DOD and other departments and 
agencies of the Federal Government in the planning and conduct of 
stability operations?
    Answer. Coordinated and integrated interagency efforts are 
essential to the conduct of successful stability operations. The United 
States should emphasize non-military means and military-to-military 
cooperation to address instability and reduce the demand for 
significant U.S. force commitments to stability operations. In general, 
the Department should be in a support role to other U.S. Government 
departments and agencies in the planning and execution of most 
stability operations. However, if directed, the Department will lead 
stability operations activities to establish security, to restore 
essential services, to repair and protect critical infrastructure, and 
to deliver humanitarian assistance. Once acceptable levels of security 
and public order have been established, the Department should seek to 
transition lead responsibility to other U.S. Government agencies, 
foreign governments and security forces, or international governmental 
organizations.
    Question. In developing the capabilities necessary for stability 
operations, what adjustments, if any, should be made to prepare U.S. 
Armed Forces to conduct stability operations without detracting from 
its ability to perform combat missions?
    Answer. As our campaigns over the last 12 years have demonstrated, 
it is no longer an either/or choice between stability operations and 
combat. After almost 2 decades of hard-earned lessons in Afghanistan, 
Iraq, the Balkans, and elsewhere, I understand the Services have made 
great strides in their combined abilities to conduct stability 
operations. If confirmed, I will seek to maintain the stability 
operations expertise the Department has gained, and to ensure that the 
Services have the mechanisms necessary to expand their capacities, 
should our military forces be called upon to conduct comprehensive and 
sustained stability operations.
    Question. Do you believe that the U.S. Government needs to 
establish new procedures to manage stability operations? If so, why?
    Answer. Collaborative and coordinated planning with interagency and 
international partners is fundamental to the successful management and 
the effectiveness of U.S. Government stabilization and reconstruction 
activities. We must have a strong combined ability to conduct effective 
interagency planning. If confirmed, I will review the Department's 
procedures to identify potential improvements in the current processes 
and procedures used to manage stability operations across the U.S. 
Government and, as necessary and possible, expand the Department's 
support to other departments and agencies in their stability operations 
planning and execution.
    Question. With the drawdown of operations in Iraq and Afghanistan, 
what is your view on the future disposition of foreign and security 
force funding authorities including 1206 (Global Train and Equip), the 
Global Security Contingency Fund (GSCF), and other security force 
assistance authorities?
    Answer. Today's security challenges cannot and should not be 
addressed by the United States alone. We need partnerships that combine 
our unique capabilities with the unique strengths of our allies and 
partners. Future challenges will likely emphasize the importance of our 
collaboration with capable partners. I understand that in order to meet 
our counterterrorism challenges, the Department shares these two 
authorities with the State Department to train and equip foreign 
security forces in a more rapid fashion than traditional Foreign 
Military Financing. Section 1206 is an important part of the 
Department's ``toolbox'' for responding to urgent and emerging 
counterterrorism challenges and stability operations, and that the GSCF 
is in its initial pilot phase. If confirmed, I will ensure that the 
Department effectively and efficiently leverages authorities that 
enable our security force assistance efforts. These efforts are 
important to the Department's ability to build the capacity of foreign 
partners to help them develop effective and legitimate security 
institutions that can provide for their countries' internal security, 
and contribute to regional and multilateral responses to threats and 
instability.
    Question. In your view, is there a roll for DOD in improving the 
operational capabilities of the African Standby Brigades?
    Answer. The Department can help improve the capabilities of the 
individual countries contributing forces to the African Standby 
Brigades. Direct training can make a qualitative difference in the 
capabilities of partner countries and increase the effectiveness of the 
regional organizations that mandate such operations. In terms of 
helping the Standby Brigades once they are established, I understand 
that there are Presidential Determinations authorizing work with some 
regional organizations. In the cases where the Department is able to 
engage, I understand that habitual training and exercises can help 
strengthen the Brigades' operational capabilities.
                       security situation in iraq
    Question. What is your assessment of the current security situation 
in Iraq?
    Answer. The overall security situation is stable, yet challenges 
remain. It is critical for Iraq to resolve its internal boundary 
disputes and political differences without the use or threat of force. 
I am concerned about the intent of al Qaeda in Iraq to exploit 
political and sectarian differences to breed instability. The Iraqi 
Security Forces have proven themselves capable of countering this 
threat to date and I believe that our continuing partnership with Iraq 
should aim to help Iraq against this terrorist threat.
    Question. What are the main challenges to stability and security in 
Iraq over the coming months?
    Answer. The main challenges to internal stability and security in 
Iraq are al Qaeda in Iraq, slow political progress, and sectarian-
motivated groups who would use violence to advance their cause. 
Moreover, the unresolved status of territories claimed by the Kurdistan 
Regional Government has the potential to create fissures that can be 
exploited by extremist groups, and could lead to an escalation of 
tension between Kurdish and central government forces. While plenty of 
stumbling blocks exist, it is important that the Iraqi political 
parties continue to look to the political process to resolve their 
differences. Continuing to encourage dialogue and respect for the 
constitutional process will be crucial to ensuring long-term stability. 
The United States must also closely watch the impact that events 
external to Iraq, such as the deteriorating situation in Syria, have on 
Iraqi stability and security.
                    u.s.-iraq strategic relationship
    Question. The withdrawal of U.S. forces from Iraq at the end of 
2011 has been described as the beginning of a new chapter in the 
strategic relationship between the United States and Iraq. The U.S.-
Iraq Strategic Framework Agreement sets out a foundation for a 
normalized U.S.-Iraqi relationship in areas of mutual economic, 
diplomatic, cultural and security interests. Secretary of Defense 
Panetta and the Iraqi Minister of Defense recently signed a Memorandum 
of Understanding (MOU) for Defense Cooperation between the Ministry of 
Defense of the Republic of Iraq and the DOD of the United States.
    How do you envision the U.S.-Iraq strategic relationship developing 
in the coming years and what are your priorities for that relationship?
    Answer. The United States should seek a normal, productive 
relationship and a strategic partnership with a sovereign Iraq--
analogous to the partnerships we have with other countries in the 
region and around the world. If confirmed, I will continue to 
strengthen our military-to-military relationship with Iraq, and further 
its reintegration into the region.
    Question. What do you see as the greatest challenges for that 
relationship over the coming years?
    Answer. Iraq faces several tough challenges as the Nation's new 
government matures and works through internal differences, and it will 
be important to continue to engage Iraq during a time of change. We 
have moved from occupiers to partners, and that can be a hard 
transition. But recent turmoil in the broader Middle East highlights 
the importance of active U.S. engagement and maintaining strategic 
partnerships with regional partners based on mutual interests and 
mutual respect. We must maintain focus on Iraq in order to advance 
broader U.S. objectives of peace and security in the region.
    Question. What is your understanding and assessment of the recently 
concluded MOU? In your view, does this agreement on defense cooperation 
promote U.S. interests with respect to Iraq and the region?
    Answer. My understanding of the MOU is that it represents mutual 
understandings regarding future expansion of defense cooperation. In a 
time of great uncertainty in the region, Iraq will play an increasingly 
important role in ensuring stability and it is critical that we 
continue to work together to ensure stability and peace in the region.
                 office of security cooperation in iraq
    Question. In the NDAAs for Fiscal Years 2012 and 2013, Congress 
authorized the Secretary of Defense to support the transition in Iraq 
by providing funds for the activities and operations of the Office of 
Security Cooperation in Iraq (OSC-I). In the report accompanying the 
NDAA for Fiscal Year 2013, the conferees expressed their expectation 
that the administration will accelerate the transition of the OSC-I to 
a normalized status comparable to Offices of Security Cooperation in 
other countries in the region, and that funding for OSC-I activities 
and operations will be transitioned out of DOD to other sources, as is 
the case for offices of security cooperation in other countries.
    Do you support the transition of the OSC-I to a normalized office 
of security cooperation comparable to those in other countries in the 
region?
    Answer. Yes. The OSC-I, under Chief of Mission authority, is the 
foundation for our long-term security partnership with Iraq. If 
confirmed, I will continue Secretary Panetta's work to normalize the 
OSC-I, in coordination with the Department of State, which has lead for 
the U.S. Mission in Iraq.
    Question. If confirmed, will you ensure that the transition of the 
OSC-I to a normalized status, including funding from sources other than 
the DOD, is completed in a deliberate manner?
    Answer. Yes. If confirmed, I will work with the Department of 
State, which has lead for the U.S. Mission in Iraq, to normalize the 
OSC-I and transition to traditional security assistance and security 
cooperation funding sources.
    Question. What timeframe would you use as a target to transition 
OSC-1 to a normalized status?
    Answer. I am unable to comment on the specific timing as I have not 
reviewed the detailed plans and it is a decision to be made with the 
Department of State, which has lead for the U.S. Mission in Iraq. If 
confirmed, I will review the planning for OSC-I normalization and work 
closely with the Department of State.
                          afghanistan strategy
    Question. Do you support the current strategy for Afghanistan? In 
your view, is that the right strategy?
    Answer. Yes. I support the strategy that the President has set 
forth and that we are now implementing, and I believe it is the right 
strategy. I believe that any strategy should be reviewed and adapted 
over time, and, if confirmed, will give my best advice to the President 
and consult with Congress on this critical issue.
    Question. If confirmed, are there changes you would recommend to 
the U.S. strategy in Afghanistan?
    Answer. I believe that the U.S. strategy in Afghanistan is sound. I 
also believe that, over time, the administration should continue to 
assess the strategy. If confirmed, I will consult with Congress, and 
with our allies and partners in this regard.
    Question. What is your assessment of the progress of the campaign 
in Afghanistan?
    Answer. I believe that our campaign in Afghanistan has made 
significant progress. Our Coalition and Afghan partners blunted the 
insurgents' summer offensive for the second consecutive year. The 
Afghan National Security Forces (ANSF) are moving into security lead 
throughout the country. They are pushing violence out of most populated 
areas, and the United States and our coalition partners agreed in 
Chicago to support the long-term stability and security of Afghanistan. 
Exceeding initial expectations, Afghan forces began leading the 
majority of operations in July 2012 and now lead approximately 80 
percent of operations. In February, in conjunction with the fourth 
tranche of transition, the ANSF is expected to have the lead in 
securing 87 percent of the Afghan population. Overall violence was down 
7 percent in 2012. At the same time, I understand that significant 
challenges remain, including insider threats and completing the 
transition to Afghanistan taking on full responsibility for its 
security at the end of 2014.
                   security transition in afghanistan
    Question. President Obama and Afghan President Karzai recently 
announced that the transition to an Afghan lead for security throughout 
Afghanistan will occur this spring, several months ahead of schedule. 
As part of the ongoing transition, coalition forces are shifting 
increasingly to an advise-and-assist mission but will continue to 
support Afghan security forces until the International Security 
Assistance Force (ISAF) mission concludes by no later than the end of 
2014.
    Do you support the announced transition of the security lead to 
Afghan security forces throughout Afghanistan by this spring?
    Answer. Yes. As this transition occurs, I understand that the ISAF 
will shift into an advisor support role.
    Question. Do you support the shift in the mission of coalition 
forces to an increasingly advise-and-assist role in support of Afghan 
security forces?
    Answer. Yes. This mission shift to an increasingly support role is 
consistent with what Afghans want and what was agreed at the 2010 
Lisbon Summit--an Afghanistan able to provide for its own security, 
with the assistance of the U.S. and other nations. The U.S. and our 
coalition and Afghan partners reaffirmed this goal at the 2012 Chicago 
North Atlantic Treaty Organization (NATO) Summit. For transition to be 
successful, it makes good sense for the ANSF to assume lead security 
responsibility this year, enabled by continued support and mentoring 
from ISAF to prepare them for full security responsibility by the end 
of 2014.
    Question. Do you agree that it is important for the success of the 
mission in Afghanistan to have Afghan security forces, rather than 
coalition forces, taking the lead for security and conducting 
unilateral operations to the maximum extent?
    Answer. Yes. Training and developing the ANSF into a force that can 
sustainably assume full security responsibility by the end of 2014 is 
critical to meeting this objective.
    Question. What is your assessment of the capacity and performance 
of the Afghan security forces in assuming the lead for security in 
areas designated for transition, including in contested areas?
    Answer. I understand that the ANSF have exceeded initial 
expectations. Afghan forces began leading the majority of operations in 
July 2012 and now lead approximately 80 percent of operations, 
including increasingly complex, multi-day operations. Violence in 
transition Tranches 1, 2, and 3, where the ANSF are now in the lead, 
was down 9 percent, 6 percent, and 14 percent respectively in 2012 
compared to 2011. Some of these initial areas of transition include 
contested areas, such as Lashkar Gah and Helmand, where the ANSF have 
done well. However, the last two transition Tranches contain many 
contested areas, so significant challenges remain and ISAF support will 
be critical throughout 2013-2014.
    Question. In your opinion, are there any conditions on the ground 
in Afghanistan at the end of 2014 that would preclude a responsible 
transition of mission from combat to support for U.S. forces? Under 
what conditions, if any, would you recommend against making such a 
transition at the end of 2014?
    Answer. Currently, I believe that transition is on track for the 
Afghans to assume full security responsibility by the end of 2014. At 
this time, I do not foresee any realistic conditions that would 
preclude this transition from being completed responsibly by the end of 
2014. If confirmed, I will monitor the conditions closely and will 
continue to assess progress, in consultation with commanders on the 
ground and the Joint Chiefs; and, if necessary and warranted by 
changing conditions, I will adjust the Department's recommendations.
                draw down of u.s. forces in afghanistan
    Question. In June 2011, President Obama announced his decision to 
draw down the 33,000 U.S. surge force in Afghanistan so that by the 
summer of 2012 U.S. forces will be at a level of 68,000. The President 
recently reaffirmed his pledge to continue to bring U.S. forces home 
from Afghanistan at a steady pace. He also stated he would announce the 
next phase of the U.S. drawdown based on the recommendations of the 
ISAF Commander and other commanders on the ground in Afghanistan.
    How would you assess the decision to draw down the 33,000 U.S. 
surge force from Afghanistan by the end of summer 2012?
    Answer. In my view, the decision to draw down the U.S. surge by the 
end of the summer has been proven by conditions on the ground. Although 
challenges remain and progress in Afghanistan has been uneven in many 
areas, overall security has improved and Afghans are increasingly in 
the lead.
    Question. What in your view should be the pace of reductions in 
U.S. forces during each of 2013 and 2014?
    Answer. I do not have access to the relevant analysis to make a 
detailed assessment, but understand that President Obama will consider 
options provided by our senior military and civilian leaders. I support 
the President's direction, articulated in the West Point speech, for 
``steady'' reductions. If confirmed, ensuring an effective transition 
in Afghanistan will be one of my top priorities.
    Question. What in your view should be the size and missions of any 
residual U.S. force that may remain in Afghanistan after the end of 
2014?
    Answer. The key missions of any post-2014 military presence would 
focus: training, advising, and assisting ANSF; and targeted 
counterterrorism missions against al Qaeda and its affiliates, while 
also protecting U.S. forces and citizens. The size of the force will 
flow from missions assigned.
    Question. In your view, is there a minimum number of troops that 
will be required to both accomplish the assigned mission and provide 
security for those executing that mission?
    Answer. I have not yet reviewed the detailed mission planning and 
analysis to form a view regarding the appropriate number of U.S., 
coalition, and Afghan troops necessary to fulfill key missions 
including force protection. I do believe that sufficient forces should 
be provided to do the job assigned to them, while protecting 
themselves.
               status-of-forces agreement for afghanistan
    Question. As called for in the Enduring Strategic Partnership 
Agreement signed in May, the United States and Afghanistan are holding 
talks on a Bilateral Security Agreement, which will provide essential 
protections for any limited U.S. military presence in Afghanistan after 
2014.
    Do you agree that it is essential that any status of forces 
agreement for U.S. military forces in Afghanistan after 2014 provide 
immunity for U.S. troops from prosecution in Afghan courts?
    Answer. Yes. I agree with the position made clear by the President 
during his joint press conference with President Karzai on January 11, 
2013, that ``it would not be possible for us to have any kind of U.S. 
troop presence [in Afghanistan] post-2014 without assurances that our 
men and women who are operating there are [not] in some way subject to 
the jurisdiction of another country.''
                  afghanistan national security forces
    Question. What is your assessment of the progress in developing a 
professional and effective Afghanistan National Security Forces (ANSF)?
    Answer. Based on the information available to me, I believe that 
the ANSF has and continues to make significant progress over the past 
few years. I understand that today the ANSF field three out of every 
four people in uniform defending Afghanistan, and that Afghans conduct 
the majority of operations backed up by the ISAF.
    Question. What do you see as the main challenges to building the 
capacity of the ANSF and, if confirmed, what recommendations, if any, 
would you make for addressing those challenges?
    Answer. A first challenge is to continue to improve the quality, 
readiness and performance of the 352,000 personnel in the ANSF. I 
understand that problems remain in leadership, retention, corruption, 
and the long personnel training needed to operate certain enablers such 
as logistics and intelligence, surveillance, and reconnaissance (ISR). 
A second challenge is for the ANSF to develop a greater capacity for 
maintaining equipment and integrating it into operations needed for 
logistics support, mobility, ISR, and operational planning. I am aware 
that the Department has an aggressive effort to close these enabler 
gaps. Third, and most broadly, the ANSF must continue building its 
self-confidence through operational success in taking the lead 
responsibility for securing transitioning areas and protecting the 
Afghan people. If confirmed, I will make it a priority to continue, and 
where necessary, adjust efforts to build ANSF capacity and capability.
    Question. Do you support plans for building and sustaining the ANSF 
at 352,000 personnel?
    Answer. Yes. I understand that our commanders consider the current 
ANSF force of 352,000 personnel necessary to complete the transition to 
Afghan lead security responsibility by the end of 2014, and to secure 
the country during the transition of power following the Afghan 
Presidential election in 2014. If confirmed, I will continue to review 
the numbers and capabilities of the ANSF to ensure that we are 
supporting a force structure that is sufficient to meet our goals, and 
is fiscally sustainable over the long term.
    Question. Do you agree that any reductions in the ANSF from this 
352,000 level should be based on security conditions in Afghanistan at 
the time those reductions would be expected to occur?
    Answer. I agree that changes in ANSF force levels should take 
account of expected security conditions. At the same time, for planning 
and budgeting purposes, it is necessary to make projections about the 
future security environment and plans about future force levels. If 
confirmed, I will review these issues and propose adjustments over 
time, as appropriate.
                             insider threat
    Question. In 2012 there was a significant increase in the number of 
so-called ``green-on-blue'' incidents in which individuals in Afghan 
uniform attacked U.S. or coalition soldiers. The rising number of 
insider attacks has led U.S. and Afghan military leaders to order a 
number of precautions against such insider threats, including expanding 
Afghan counterintelligence efforts to identify possible Taliban 
infiltrators, increasing cultural sensitivity training, and expanding 
the ``Guardian Angel'' program to protect against the insider threat in 
meetings between coalition and Afghan forces.
    What is your assessment of the insider threat and its impact on the 
military campaign in Afghanistan?
    Answer. Insider attacks have the potential to damage the strategic 
trust necessary for our campaign to succeed. It is vital that we work 
with our Afghan and international partners to take every step possible 
to stop these attacks. I understand that U.S. and Afghan efforts have 
reduced attacks and are helping to reduce risks to coalition personnel. 
If confirmed, I will continue to pay close attention to countering this 
threat.
    Question. What is your assessment of the measures that have been 
taken by ISAF and Afghan leaders to address the insider threat?
    Answer. My understanding is that the measures put in place to date 
have helped to mitigate the threat from insider attacks, with the 
number of attacks now dropping from a peak in August 2012. Raised 
awareness of the threat and the implementation of robust force 
protection measures help protect our personnel, but the work by the 
ANSF to identify threats and prevent attacks through improved 
intelligence gathering and vetting of personnel remains critical. As we 
move into the ``fighting season'' we need to ensure these steps 
continue to be implemented fully and that ISAF continues to take the 
necessary steps to prevent these attacks. If confirmed, I will make 
this a key priority.
    Question. Are there additional steps that you would recommend to 
address this threat, if confirmed?
    Answer. If confirmed, I will continue current efforts--and ask for 
a constant review of additional measures to further reduce the risk 
posed by insider threats.
    Question. What is your assessment of the impact of these green-on-
blue attacks on the level of trust between coalition and Afghan forces?
    Answer. It is understandable that insider attacks have negatively 
impacted trust in some areas. However, after more than 11 years of 
fighting shoulder to shoulder and shared sacrifice, I believe that, in 
most areas, the relationship between the ANSF and the Coalition remains 
strong, particularly out in the field, where soldiers face a common 
enemy every day.
    Question. In light of the spike in insider attacks, do you see a 
need to reconsider our plans for embedding small Security Force 
Assistance Teams of U.S. military personnel with Afghan military units 
as part of the transition to an Afghan security lead?
    Answer. If confirmed, I will place a priority on mitigating insider 
attacks and will ensure that our commanders continually assess the 
impact of these attacks on the campaign, and consider whether changes 
to the Security Force Assistance Team model should be made, including 
any temporary adjustments as needed.
                             reconciliation
    Question. In your view, what should be the role of the United 
States in any reconciliation negotiations with the Afghan Taliban and 
other insurgent groups?
    Answer. I agree with President Obama that Afghan-led reconciliation 
is the surest way to end violence and ensure lasting stability in 
Afghanistan and the region. Most counterinsurgencies end in some form 
of negotiation. The U.S. role should be to facilitate credible 
negotiations between the Afghan Government and the Taliban, and ensure 
that three necessary outcomes are met: that the Taliban and armed 
groups end violence, break ties with al Qaeda, and accept Afghanistan's 
constitution, including protections for all Afghan men and women.
    Question. What additional steps, if any, should the United States 
be taking to help advance the reconciliation process?
    Answer. The United States should continue to coordinate efforts 
closely with the Afghan Government.
    Question. In your view, what should be the role of Afghanistan's 
neighbors, in particular Pakistan, in the reconciliation process?
    Answer. Afghanistan's neighbors should support an Afghan-led 
process. Each will benefit from improved stability in Afghanistan or 
potentially suffer from continued violence. Pakistan and other 
neighbors should work forthrightly with Afghanistan to mitigate any 
suspicions or misunderstandings.
                   special operations in afghanistan
    Question. Special Operations Forces depend on general purpose 
forces for many enabling capabilities, including ISR; logistics; and 
medical evacuation. Admiral McRaven, Commander of U.S. Special 
Operations Command, has said ``I have no doubt that special operations 
will be the last to leave Afghanistan'' and has predicted that the 
requirement for special operations forces may increase as general 
purpose forces continue to be drawn down.
    If confirmed, how would you ensure adequate enabling capabilities 
for Special Operations Forces as general purpose forces continue to 
draw down in Afghanistan?
    Answer. If confirmed, I will seek to ensure that all U.S. forces in 
Afghanistan--including both Special Operations Forces and general 
purpose forces--are supported by sufficient enablers. In addition to 
providing clear guidance to commanders, I will seek the military advice 
of the Chairman of the Joint Chiefs, and ensure that the views of all 
relevant combatant commanders are taken into account.
    Question. Last April, the United States and Afghanistan signed an 
MOU on the ``Afghanization'' of direct action counterterrorism missions 
in Afghanistan reflecting the shared intention of having Afghan 
security forces in the lead in the conduct of such operations with U.S. 
forces in a support role.
    Why is it important for Afghan Special Operations Forces to be in 
the lead on night raids?
    Answer. Having Afghans in the lead for ``night operations'' makes 
good sense for three reasons. First, this approach helps ensure that 
cultural and language differences do not result in misunderstandings 
that could escalate a situation. Second, having Afghans in the lead 
allows for improved real-time intelligence collection. Third, the 
Afghan Special Operations Forces are capable of fulfilling this mission 
and their doing so is a key part of the transition.
    Question. General Allen and others have consistently praised the 
Village Stability Operations (VSO) and Afghan Local Police (ALP) 
programs--both U.S. Special Operations missions as critical elements of 
the counterinsurgency strategy in Afghanistan. Some Afghans have called 
for the removal of U.S. Special Operators from these operations.
    What are your views on the value of these programs and do you 
believe they should be part of the long-term strategy in Afghanistan 
(i.e. post-2014)?
    Answer. I understand that VSO and the ALP have contributed to the 
decline in Taliban control in many strategic areas throughout 
Afghanistan. If I am confirmed, I will make a priority to assess the 
potential future value of these programs.
               u.s. strategic relationship with pakistan
    Question. What would you consider to be areas of shared strategic 
interest between the United States and Pakistan?
    Answer. I believe the United States and Pakistan share common 
interests in disrupting, dismantling, and defeating al Qaeda, and in 
long-term regional stability, including a durable political settlement 
in Afghanistan and the safety and security of the Indian Ocean.
    Question. In what areas do you see U.S. and Pakistani strategic 
interests diverging?
    Answer. The United States and Pakistan often diverge over 
Pakistan's approach to the militant and terrorist networks that operate 
in Pakistan's territory and do not overtly threaten the Pakistani 
state. However, in my view, these networks threaten Pakistani 
stability, endanger the prospects for a settlement in Afghanistan, and 
undermine regional stability--so that in fact, while the relationship 
is challenging, I believe our long-term strategic interests are in 
alignment.
    Question. If confirmed, what changes, if any, would you recommend 
for U.S. relations with Pakistan, particularly in terms of military-to-
military relations?
    Answer. U.S.-Pakistan military-to-military ties have been marked by 
periodic ups and downs. In my view, the military-military relationship 
should be underlined by a realistic, pragmatic approach to enhancing 
those areas of cooperation that are dictated by our common interests 
and to ensuring accountability for actions that detract from these 
interests. If confirmed, I will make accomplishing that goal a 
priority.
                      u.s. assistance to pakistan
    Question. Since 2001, the United States has provided significant 
military assistance to Pakistan. In addition, the United States has 
provided significant funds to reimburse Pakistan for the costs 
associated with military operations conducted by Pakistan along the 
Afghanistan-Pakistan border and other support provided in connection 
with Operation Enduring Freedom.
    In your view, how effective has the assistance and other support 
that the United States has provided to Pakistan been in promoting U.S. 
interests?
    Answer. As the President has said, more terrorists have been killed 
in Pakistan than anywhere else since September 11--and that would not 
be possible without Pakistani cooperation. Security assistance for 
Pakistan has helped Pakistan press this campaign against the militant 
and terrorist networks that threaten us all. If confirmed, I will work 
to ensure that our security assistance and other support to Pakistan 
both serves U.S. interests and is cost effective.
    Question. Do you support conditioning U.S. assistance and other 
support to Pakistan on Pakistan's continued cooperation in areas of 
mutual security interest?
    Answer. U.S. assistance to Pakistan should not be unconditional. At 
the same time, any conditions should be carefully examined to ensure 
they advance U.S. strategic interests.
                     al qaeda and associated forces
    Question. What is your assessment of the threat posed by al Qaeda 
and its associated forces to the U.S. Homeland, U.S. interests 
overseas, and Western interests more broadly?
    Answer. I assess that the threat posed by al Qaeda to the U.S. 
Homeland has been significantly diminished over the past 4 years. At 
the same time, al Qaeda's remaining leadership in Pakistan and al Qaeda 
in the Arabian Peninsula remains of serious concern. Additionally, the 
Arab Spring has created new opportunities for al Qaeda affiliates in 
Syria and North Africa.
    Question. In light of the recent events in Benghazi and Algeria, do 
you share the assessment that al Qaeda is on the brink of strategic 
defeat?
    Answer. Our sustained military, intelligence, and diplomatic 
efforts over the last 10 years have brought us closer to the strategic 
defeat of core al Qaeda. There can be no doubt, however, that al Qaeda 
and associated forces remain potent, dangerous, and adaptable foes--as 
evidenced by its despicable actions in Benghazi and more recently in 
Algeria. If confirmed, I will continue to focus on defeating al Qaeda 
and its associated forces around the world.
                              arab spring
    Question. The Arab Spring has changed--and will likely continue to 
change--the political dynamics in the Middle East and North Africa. 
These changes require the United States to adjust our military-to-
military and defense civilian relations in this region. Some observers 
argue that the United States should reduce significantly our military-
to-military contact in countries as a result of the ongoing changes and 
others advocate more robust and stepped-up contact with our partners in 
this region.
    In your view, what should be the posture of the U.S. Government on 
military-to-military and defense civilian relations in the region?
    Answer. DOD's military-to-military and defense civilian relations 
with our partners in the Middle East and North Africa have played a 
critical role in advancing U.S. strategic interests, which include: 
securing and protecting Israel, preventing Iran from acquiring a 
nuclear weapon, defeating extremists, countering terrorist 
organizations, ensuring the free flow of commerce, and supporting 
operations in Afghanistan. Engagement with key partners' defense 
ministries and militaries, building partner capacity to meet common 
challenges, having a forward presence to enable operations and deter 
threats, and if and when necessary to conduct future contingencies, all 
require considerable effort by both DOD and the Department of State. 
During this time of change and uncertainty in the region, the 
Department should sustain military-to-military and defense civilian 
relations, while continuing to evaluate and recalibrate the nature and 
substance of our relationships to ensure they are consistent with U.S. 
values and advance U.S. vital national interests.
                                 syria
    Question. The civil war in Syria continues and President Assad's 
commitment to continuing his regime's ongoing operations appear 
unwavering--despite broad international condemnation. To date, the 
United States has limited its support to opposition forces to non-
lethal assistance to forces on the ground, as well as technical 
assistance to elements of the opposition working to build a cohesive 
political entity.
    In your view, what is the proper role on the United States in this 
conflict?
    Answer. I support the administration's position that Syrian 
President Bashar al-Asad has lost all legitimacy and must step aside to 
enable a political solution that ends the bloodshed, and meets the 
aspirations of the Syrian people. As President Obama has clearly 
stated, Asad must go. I also support the administration's approach to 
the ongoing crisis in Syria--working closely with allies, partners and 
multilateral institutions to achieve this goal through diplomatic and 
economic pressure on the Asad regime.
    I agree with the administration's continued support of the Geneva 
Action Group's framework for a political solution, which was endorsed 
by the five permanent members of the U.N. Security Council, the Arab 
League, and the U.N. General Assembly. If confirmed, I will continue to 
support Joint U.N.-Arab League Special Representative Brahimi's efforts 
to build international support for the Geneva framework and urge all 
parties in Syria to take steps toward its implementation, to help 
expedite an end to the suffering of the Syrian people.
    Question. In your view, should the United States provide other 
kinds of support to opposition groups on the ground in Syria, including 
the provision of lethal support?
    Answer. The U.S. Government should continue providing non-lethal 
assistance to the unarmed opposition, as well as humanitarian support 
to Syrians in need, both inside Syria and in neighboring countries. The 
United States should also continue to support the opposition in the 
diplomatic arena. This includes helping the newly established Syrian 
Opposition Council with its efforts to end the conflict and improve the 
future of the Syrian people. I also believe that, like ongoing 
diplomatic efforts, U.S. assistance efforts should continue to be 
coordinated with our allies, partners, and relevant regional groups to 
have the biggest impact possible.
    I do not believe that providing lethal support to the armed 
opposition at this time will alleviate the horrible situation we see in 
Syria. The Syrian people are in great need during this difficult 
period, and the United States is helping to address those basic needs 
by providing medical assistance, humanitarian assistance, and political 
support on the international stage. We must continually explore 
additional ways to provide resources and help influence the right 
outcome.
    Question. If confirmed, will you review Defense Department planning 
for options to ensure the security of chemical weapons in Syria, and 
recommend any additional planning, if needed?
    Answer. If confirmed, I will ensure that the Department continues 
planning for a variety of contingencies in order to provide the 
President with options. This includes relevant planning for Syria and 
specifically, the security and elimination of chemical weapons in 
Syria. If confirmed, I will review these plans and, if necessary, I 
will direct additional planning on this and any other potential 
contingencies.
    Question. In your view, what should be NATO's role with respect to 
Syria (i.e. should NATO consider a military intervention, the creation 
of a no-fly zone, or other military operations to protect civilians and 
support opposition forces)?
    Answer. The United States is working with our allies to achieve a 
peaceful and orderly political transition in Syria and to end the 
bloodshed as quickly as possible. Our NATO allies are closely 
monitoring the situation in Syria, especially as the conflict touches 
on NATO's border in Turkey, and like us, are extremely concerned about 
the deteriorating humanitarian conditions on the ground. NATO's 
ultimate task is the protection and defense of NATO members. To that 
end, I support NATO's decision to augment Turkey's air and missile 
defense capabilities in order to defend the population and territory of 
Turkey and contribute to the de-escalation of the crisis along the 
alliance's border. This includes the recent deployment of NATO Patriot 
batteries to Turkey from the United States, Germany, and The 
Netherlands. I understand the administration has also been working with 
our international partners, including NATO allies, to ensure that the 
appropriate humanitarian assistance is reaching those Syrians in need, 
both inside Syria and in neighboring countries (Lebanon, Turkey, 
Jordan, and Iraq).
                                 libya
    Question. On March 19, 2011, the multilateral military operation, 
named Operation Odyssey Dawn, was launched in Libya to enforce United 
Nations Security Council Resolution 1973. Following the initial 
operations against Libyan integrated air defense systems, this 
operation continued under NATO Command as Operation Unified Protector.
    What are your views on the limited U.S. military mission in Libya--
Operation Odyssey Dawn and Operation Unified Protector?
    Answer. I believe the U.S. and NATO operations in Libya were a 
success. Operation Odyssey Dawn stopped Colonel Qadhafi's army from 
advancing on Benghazi, saved thousands of lives, and established the 
conditions for a no-fly-zone. Operation Unified Protector built on 
these accomplishments and created the time and space needed for the 
opposition to oppose, and ultimately overthrow, Qadhafi. Both 
operations had limited and clear objectives for the unique capabilities 
the U.S. military could provide, avoided U.S. boots-on-the-ground, 
integrated allies and partners, minimized collateral damage and 
civilian casualties to a historically unprecedented extent, and enjoyed 
the legitimacy of U.N. Security Council authorization. This was all 
achieved at a fraction of the cost of recent interventions in the 
Balkans, Iraq, or Afghanistan.
           u.s. marine corps support to the state department
    Question. The Accountability Review Board for Benghazi recently 
completed its report examining the facts and circumstances surrounding 
the September 11-12, 2012 attack against the U.S. temporary mission 
facility in Benghazi. Among its findings and conclusions, its report 
supported the ``State Department's initiative to request additional 
marines and expand the Marine Security Guard (MSG) Program--as well as 
corresponding requirements for staffing and funding. The Board also 
recommends that the State Department and DOD identify additional 
flexible MSG structures and request further resources for the 
Department and DOD to provide more capabilities and capacities at 
higher risk posts.'' In the NDAA for Fiscal Year 2013, Congress 
authorized up to 1,000 additional marines in the MSG program to provide 
the additional end strength and resources necessary to support enhanced 
Marine Corps security at U.S. embassies, consulates, and other 
diplomatic facilities.
    In your view, should the Marine Corps diplomatic security mission 
be expanded to include new roles beyond the protection of classified 
information and equipment, and if so, how many additional marines and 
what rank structure would be needed?
    Answer. I am aware that the Departments of Defense and State are 
currently thoroughly examining the challenges and threats posed by 
global unrest to our overseas operations and are developing options to 
address these challenges. These options include consideration of 
expanding Marine Security Guard detachments, as well as adjustments to 
their roles and responsibilities. I have not reviewed the details of 
the options and, therefore, am unable to comment on the specific 
arrangements, numbers of personnel, or rank structure at this time. 
However, if confirmed, I will place personal emphasis on this issue and 
work closely with the Secretary of State and Congress to ensure we are 
doing all we can to help protect our diplomats and diplomatic 
facilities overseas.
    Question. In your view, should the current arrangements between the 
Department of State and U.S. Marine Corps be modified?
    Answer. I cannot recommend any changes at this time. If confirmed, 
I will review the on-going work and recommendations that are being 
developed by the Departments of Defense and State that is examining the 
roles, responsibilities, and arrangements of the U.S. Marine Security 
Guards and the Department of State.
          strategic communications and information operations
    Question. Over the past decade, DOD has funded an increasing number 
of military information support operations (formerly known as 
psychological operations) and influence programs. The GAO reports that 
DOD has ``spent hundreds of millions of dollars each year'' to support 
its information operations outreach activities. Many of these programs 
are in support of operations in Afghanistan, but Military Information 
Support Teams (MIST) from U.S. Special Operations Command also deploy 
to U.S. embassies in countries of particular interest around the globe 
to bolster the efforts of the Department of State and the U.S. Agency 
for International Development. Further, the geographic combatant 
commands are increasingly moving into this operational space.
    What are your views on DOD's military information support 
operations and influence programs?
    Answer. I believe DOD must be able to influence and inform foreign 
audiences in environments susceptible to the messages of U.S. 
adversaries. MISTs are trained in developing culturally appropriate 
messages to counter hostile information and propaganda, as well as 
assisting with building the capacity of partner nations to conduct 
these activities themselves. I understand that DOD influence 
activities, including those conducted by MISTs, are coordinated closely 
with the embassies in the areas where they operate, both inside and 
outside of areas of conflict, and at times can support common efforts 
of other agencies. I understand the Department has taken significant 
steps to address congressional concerns related to policy oversight, 
budgeting, and effectiveness. If confirmed, I intend to continue to be 
responsive to Congress on this matter, as well as to continue the 
Department's efforts to coordinate information activities across the 
interagency.
    Question. In 2005, al Qaeda's Ayman al-Zawahiri declared that ``We 
are in a battle, and more than half of it is taking place in the 
battlefield of the media.'' In 2010, a non-partisan study highlighted 
the lack of a U.S. strategy to counter radical ideologies that foment 
violence (e.g. Islamism or Salafist-Jihadism).
    In your view, what is the appropriate role of DOD, if any, in 
developing and implementing a strategy to counter radical ideologies, 
and how does that role complement or conflict with the efforts of the 
Intelligence Community and the State Department?
    Answer. Countering violent extremist ideology is a whole-of-
government endeavor. I believe the Defense Department's focus should be 
on using its assets to meet military objectives and providing support 
to other U.S. Government agencies as requested. I understand the 
Department's activities in this area are closely coordinated with the 
Intelligence Community and the State Department.
    Question. Defense Secretary Gates launched the Minerva Program in 
2009 to develop deeper social, cultural and behavioral expertise for 
policy and strategy purposes.
    Do you support this program and its goals?
    Answer. I understand both Secretary Gates and Secretary Panetta 
supported the MINERVA initiative, which provides the Department with a 
means to focus research on complex social, cultural and political 
dynamics related to our strategic interests around the world. If 
confirmed, I would seek to learn more about the program and assess its 
continued value in supporting policy and strategy development.
                                somalia
    Question. Somalia is a training and operations hub for al Shabab 
and other violent extremists; pirates operating in the Indian Ocean and 
Arabian Peninsula; illicit traffickers of weapons, humans, and drugs; 
and remnants of the al Qaeda East Africa cell that was responsible for 
the destruction of our embassies in Dar es Salaam and Nairobi in August 
1998.
    What is your assessment of the threat posed by al Shabab to the 
U.S. Homeland and U.S. and Western interests in the East African 
region?
    Answer. My understanding is that successful operations by the 
African Union Mission in Somalia (AMISOM) have reduced Al-Shabaab's 
freedom of movement in south and central Somalia, but al Shabaab 
remains a threat to the U.S. Homeland and to U.S. and Western interests 
in the Horn of Africa. Al Shabaab leaders have claimed affiliation with 
al Qaeda since 2007 and formally merged with the group in February 
2012. Al Shabaab has demonstrated a desire and capability to conduct 
terrorist acts throughout the Horn of Africa, and it presents a threat 
to the homeland through links into Somali diaspora communities in the 
United States and Europe. Al Shabaab continues to repress the Somali 
people and remains the greatest threat to the new Somali Government. As 
the new Somali Government stands up, I believe that the United States 
must remain focused on the risks posed by al Shabaab.
    Question. Given the role of the various U.S. Government Departments 
and Agencies in the Horn of Africa, what changes, if any, would you 
make to DOD's current role in the Horn of Africa?
    Answer. With the establishment of the new government in Somalia and 
U.S. recognition of that government earlier this month, the Department 
will continue to play a role in Somalia's security sector development 
in order to help secure the gains made by AMISOM. Most of the U.S. 
Government's traditional security cooperation tools have been 
restricted from use in Somalia for some time, but I understand that the 
United States will explore possible changes in the coming year, as the 
United States moves to normalize relations with Mogadishu. If 
confirmed, I will work to ensure that the Department's approach to 
Somalia is developed as part of a coordinated U.S. national security 
policy toward the Horn of Africa, and to determine how the Department 
can and should best support our foreign policy in this region.
    Question. In your view, what role, if any, should the United States 
play in the building of a Somali national army?
    Answer. The United States can play a guiding and mentoring role in 
the development of Somalia's security sector. It is in the U.S. 
interest to ensure that Somalia's new government has a competent and 
professional military to provide security to its citizens and play a 
constructive role in the region.
                   al qaeda in the arabian peninsula
    Question. A number of senior U.S. officials have indicated the most 
significant threat to the U.S. Homeland currently emanates from Yemen.
    What is your assessment of the threat posed by al Qaeda in the 
Arabian Peninsula to the United States?
    Answer. I am very concerned about the threat that al Qaeda in the 
Arabian Peninsula (AQAP) poses to the Homeland. AQAP has attempted at 
least three attacks on the United States since December 2009, and in my 
view fully intends to attack again. AQAP has shown some very 
sophisticated and innovative techniques, such as the development of 
concealed explosive devices and printer cartridge bombs. AQAP is also 
attempting to recruit and radicalize would-be terrorists in the West 
through its extensive media outreach.
    Question. What is your assessment of the current U.S. strategy to 
counter al Qaeda in the Arabian Peninsula, specifically in Yemen?
    Answer. I support the administration's whole-of-government strategy 
to: support the political transition, marshal international economic 
and humanitarian assistance, and build Yemen's counter-terrorism 
capabilities through training and assistance. The U.S. strategy to 
disrupt, dismantle, and defeat AQAP is a collaborative U.S.-Yemeni 
effort. By closely monitoring and acting on current threat streams 
while building key Yemeni capabilities, I believe the United States has 
shown the ability to counter near-term threats.
    We have made a number of important gains against AQAP over the past 
couple of years. I understand that the Department continues to 
collaborate extensively with Yemeni forces on operational matters, 
which have helped remove several key AQAP operatives from the 
battlefield. Efforts to counter AQAP's narrative have helped to 
delegitimize the group and discourage its efforts to recruit new 
operatives. The U.S. Government's work on countering threat financing 
has made it more difficult for AQAP to receive funds and to support 
other parts of al Qaeda. U.S. efforts--many of them executed by the 
Department--to train, advise, and equip Yemeni forces are driving AQAP 
from territory it previously held and are enabling precise operations 
to capture and kill AQAP leaders.
                              north africa
    Question. In December 2012, Secretary of Defense Leon Panetta 
stated that ``Al Qaeda has long sought to operate in areas beyond the 
reach of effective security and governance, [and] we know that al 
Qaeda, its affiliates and adherents are looking to establish a foothold 
in other countries in the Middle East, and north and west Africa, 
including al Qaeda in the Islamic Maghreb, and the Boko Haram group in 
Nigeria.''
    What is your assessment of the threat posed by al Qaeda and its 
associated forces in North Africa? Do they pose a threat to the United 
States homeland and/or U.S. interests abroad?
    Answer. Al Qaeda in the lands of the Islamic Maghreb (AQIM) poses 
an increasing threat to U.S. interests. My understanding is that at 
this time, there is no credible evidence that AQIM is a direct threat 
to the U.S. Homeland. However, as seen in the recent hostage situation 
in Algeria, AQIM and its associates do threaten U.S. persons and 
interests abroad, as well as our European allies.
    Question. In January 2013, the French Armed Forces began conducting 
operations against violent extremist groups in Mali.
    In your view, what should be the role, if any, of the United States 
in supporting the French operation?
    Answer. The United States shares the French goal of denying AQIM 
and other terrorists a safe haven in the region. I agree with the 
administration's decision to support the French mission without 
deploying U.S. combat forces on the ground. My understanding is that 
this support includes assisting the movement of French and African 
forces, providing intelligence and planning support, and assisting in 
the training and preparation of African forces.
    Question. In your view, what should be the role of the United 
States in working with United Nation's Security Council authorized 
forces from the Economic Community of West African States (ECOWAS) in 
Mali?
    Answer. The African-led International Support Mission in Mali 
(AFISMA), approved by a Chapter VII U.N. Security Council mandate to 
restore Malian sovereignty and counter violent extremists, is very 
important for U.S. interests and for regional stability. I support the 
U.S. position to expedite the training, equipping and deployment of 
West African troops as part of AFISMA to ensure a successful, African-
led mission.
   collaboration between the defense department and the intelligence 
                               community
    Question. Since September 11, 2001, collaboration--both analytical 
and operational--between the Defense Department and the Intelligence 
Community has grown increasingly close. On one hand, seamless 
collaboration is a vital component of effective and rapid responses to 
non-traditional threats, and bringing together the strengths of the 
full spectrum of defense and intelligence missions creates 
opportunities for solutions to complex problems. On the other hand, 
such collaboration--without effective management and oversight--risks 
blurring the missions of agencies and individuals that have cultivated 
distinct strengths or creating redundant lines of effort.
    What are your views regarding the appropriate scope of 
collaboration between DOD and the Intelligence Community?
    Answer. Collaboration between DOD and the Intelligence Community 
(IC) is an essential element for supporting our national security 
objectives. Eight of the 17 IC components are embedded in the 
Department which constitutes a substantial portion of the Nation's 
intelligence capabilities and resources. It is my understanding that 
the Department depends on capabilities provided by the IC to support 
weapons systems acquisition and to enable military operations, while 
the IC depends on capabilities provided by the Department to support a 
wide range of critical intelligence-related and special activities. 
Collaboration has also been central to the ability to dismantle and 
eventually defeat al Qaeda and to counter the proliferation of weapons 
of mass destruction (WMD). In 2007, the Secretary of Defense and the 
Director of National Intelligence (DNI) established the position of the 
Director of Defense Intelligence (DDI) within the Office of the 
Director of National Intelligence, and dual-hatted the Under Secretary 
of Defense for Intelligence (USD(I)) as the DDI. The DNI and the USD(I) 
have since pursued National Intelligence Program-Military Intelligence 
Program budget integration leading to more effectiveness and 
efficiencies from vital intelligence resources.
    Question. In your view, are there aspects of the current 
relationship between the Department and the Intelligence Community that 
should be re-examined or modified?
    Answer. I do not know the issue well enough to make recommendations 
at the time. If confirmed, I will ensure that the Department 
consistently assesses its processes and procedures for evaluating how 
it interacts with the IC and look for opportunities to build on the 
existing relationship.
                             nato alliance
    Question. The NATO alliance continues to be central to our 
coalition operations in Afghanistan and elsewhere, even as many NATO 
members have significantly reduced their national defense budgets in 
response to economic and fiscal pressures.
    Do you agree that U.S. participation in the NATO Alliance 
contributes to advancing U.S. security interests?
    Answer. Yes. the transatlantic relationship is of critical 
importance to U.S. security interests. NATO has been the cornerstone of 
European security and an integral part of U.S. foreign policy for more 
than 60 years, and NATO has continued to be critically important to 
U.S. security interests in recent years. In Afghanistan, there have 
been nearly 40,000 allied and partner forces alongside our own. In 
Libya, NATO allies came together with Arab and other partners to 
prevent a humanitarian catastrophe, and to support the Libyan people. 
Over years in the Balkans, NATO has been vital to stability and has 
moved us closer to the goal of a Europe whole, free, and at peace. NATO 
must remain the central Alliance in U.S. global strategy and has proven 
an effective partner.
    Question. What are the greatest opportunities and challenges that 
you foresee for NATO in meeting its strategic objectives over the next 
5 years?
    Answer. In my view, the top NATO-related challenge is the mounting 
fiscal pressures facing all allies and the resulting reduction in 
alliance military capabilities as allies cut spending. However, these 
fiscal difficulties present an opportunity to transform NATO into an 
Alliance that is more efficient, with a new way of doing business that 
emphasizes innovation, flexibility, and enhanced cooperation and 
interoperability with allies and partners. The Alliance must also 
continue to adapt to meet the new threats of the 21st century: cyber 
attacks, terrorism, proliferation of WMD, and regional conflicts.
    Question. In light of the reductions in national defense spending 
by some NATO members, are you concerned that the alliance will lack 
critical military capabilities? If so, what steps, if any, would you 
recommend be taken to address potential shortfalls in alliance 
capabilities?
    Answer. Yes. I am concerned that the Alliance is in danger of 
losing critical military capabilities if something does not change. The 
past decade-plus of fighting in Afghanistan has left the alliance with 
worn equipment and depleted defense budgets. The Alliance should commit 
to halting defense cuts, complete the capability projects it has 
already initiated, and reinvest the funds it will save from the end of 
combat operations in Afghanistan into sustaining and building 
prioritized capabilities. If confirmed, I will work to ensure NATO's 
commitments to critical capabilities.
    Question. The concept of defense cooperation between NATO members 
was emphasized at the NATO summit in Chicago in May 2012.
    What areas or projects do you recommend that NATO nations cooperate 
in to improve NATO alliance capabilities?
    Answer. I support the roadmap for NATO that was agreed to by 
Presidents and Prime Ministers from across the alliance at the Chicago 
Summit last May. It describes and prioritizes NATO's required 
capabilities, encourages greater pooling of resources, and focuses on 
improving education, training, and technology to preserve the 
interoperability resulting from years of joint operations in 
Afghanistan.
    Question. Under what conditions, if any, would you envision further 
enlargement of NATO in the coming years?
    Answer. If confirmed, I would work closely with my colleagues in 
the administration and in close consultation with Congress and our 
allies to determine which countries and within what timeframe NATO 
would undertake further enlargement. Each NATO aspirant should be 
judged on its individual merits and progress in implementing political, 
economic, and military reforms.
    Question. In your view, is there a continuing requirement for U.S. 
nuclear weapons to be deployed in NATO countries?
    Answer. I agree with the 2010 Nuclear Posture Review that the 
presence of U.S. nuclear weapons, along with NATO's unique nuclear 
sharing arrangements, contribute to alliance cohesion and provide 
reassurance to allies and partners who feel exposed to regional 
threats. Any changes should only be taken after a thorough review 
within, and a decision by, the alliance. I also support NATO's 
Deterrence and Defense Posture Review that the President and fellow 
Heads of State and Government agreed to at the May 2012 Chicago NATO 
Summit. The review committed the alliance to ensuring that NATO's 
nuclear deterrent remains safe, secure, and effective. The review also 
stated that the alliance is prepared to consider further reductions in 
non-strategic nuclear weapons assigned to the alliance, in the context 
of reciprocal steps by Russia. If confirmed, I will continue to consult 
with our allies on any such negotiations.
    Question. What is your understanding of the relationship between 
Israel and Turkey as it relates to NATO? Are you concerned about the 
breakdown in the security cooperation relationship between Turkey and 
Israel and do you have any ideas as to how to mend it?
    Answer. I remain concerned about the deterioration of the 
relationship between Turkey and Israel, both of which are important 
partners for the United States and are critical to stability in their 
region. These relationships are broader than this dispute. Turkey is a 
critical NATO Ally, and we will continue to exercise, plan, and work 
with Turkey in that context. Israel is a key security partner of the 
United States. If confirmed, I would work to ensure that the United 
States continues, in diplomatic channels and in defense contacts, to 
encourage both Turkey and Israel to take the steps necessary to resolve 
their dispute and work together to address common regional challenges.
                                 kosovo
    Question. Approximately 760 U.S. troops remain in the Balkans as 
part of the Kosovo Force (KFOR) that first deployed to Kosovo in 1999 
and today is comprised of over 5,500 personnel from 30 countries. 
Spikes in violence in 2011 required the deployment of the NATO 
Operational Reserve Force battalion of approximately 600 soldiers to 
bolster KFOR and maintain a secure environment. Progress is required in 
both the military and political realms before further troop reductions 
can be made.
    What major lines of effort do you think are required to further 
reduce or eliminate U.S. and NATO presence in Kosovo?
    Answer. I recognize that the United States has a long-established 
commitment, together with our NATO allies, to a responsible, 
conditions-based drawdown of forces in Kosovo. I understand DOD 
continues to work with allies and NATO military authorities in 
monitoring and assessing conditions and pursuing carefully developed 
plans for the eventual drawdown. Ultimately, a political solution is 
needed to normalize relations between Kosovo and Serbia and thereby 
establish lasting security in Kosovo and the region. If confirmed, I 
will support this effort, both through Department-led engagements, and 
also by supporting our interagency and international partners to 
achieve this goal. I understand that a key part of the KFOR military 
plan, executed by NATO, is to enable a transition of security 
responsibilities to Kosovo. The United States plays a critical role in 
this effort. If confirmed, I will ensure that DOD provides support for 
this goal consistent with decisions among the United States and our 
allies.
    Question. In your view, is the European Union (EU) playing a 
significant enough role in Kosovo?
    Answer. The EU is playing a critical role by facilitating high-
level dialogue between Kosovo and Serbia. This dialogue is broadly 
supported by the United States and our allies as an opportunity to 
normalize relations between the two countries. The EU Rule of Law 
Mission (EULEX) plays an important role in Kosovo, working to 
strengthen legal institutions there. The United States will continue 
its support for a robust role by EULEX to fulfill its mandate.
                       special operations forces
    Question. The previous two Quadrennial Defense Reviews (QDR) have 
mandated significant growth in our special operations forces and 
enablers that directly support their operations.
    What is your assessment of the QDR mandate regarding the mix of 
responsibilities assigned to general purpose and Special Operations 
Forces, particularly as it relates to security force assistance and 
building partner military capabilities?
    Answer. I agree with the premise that adversaries will continue to 
seek alternative methods to counter U.S. influence and interests, and 
that for the foreseeable future the most likely contingencies the 
United States will face will involve irregular threats. Therefore, I 
fully support the 2010 QDR's strategic shift toward expanding general 
purpose forces' capabilities and capacity for these contingencies. The 
overall flexibility of our Armed Forces has been greatly improved by 
investing in key enablers within our conventional force such as: 
strengthening and expanding capabilities for security force assistance; 
increasing the availability of rotary-wing assets; expanding manned and 
unmanned aircraft systems for ISR; improving counter-improvised 
explosive device capabilities; and enhancing linguistic, cultural, 
counterinsurgency, and stability operations competency and capacity.
    Question. Do you believe that our general purpose forces need to 
become more like Special Operations Forces in mission areas that are 
critical to countering violent extremists?
    Answer. Countering violent extremism requires employing all of the 
capabilities of the Department--mixed and matched appropriately--
depending on the mission requirements. The experience of the last 10 
years is clear that general purpose units and special forces both 
contribute to countering violent extremists.
    Question. Are there certain mission areas that should be reserved 
for Special Operations Forces only?
    Answer. Special Operations Forces (SOF) are a uniquely specialized 
component of our U.S. Armed Forces that are trained, organized, and 
equipped to conduct counterterrorism, unconventional warfare, direct 
action, special reconnaissance, foreign internal defense, and counter-
proliferation of WMD, and other designated operation, often in areas 
under enemy control or in politically sensitive environments. In such 
operations and environments, SOF provide unique and essential 
capabilities.
    Question. Do you believe that we should further increase the number 
of special operations personnel? If so, why, and by how much?
    Answer. I understand U.S. Special Operations Command (SOCOM) is on 
track to meet the growth mandated by the last two QDRs. If confirmed, I 
would work with Commander, SOCOM, to better understand the command's 
missions, pressures, and growth plans.
    Question. Special Operations Forces rely heavily on Overseas 
Contingency Operations (OCO) funds.
    With the drawdowns in Iraq and Afghanistan, what OCO funding for 
special operations needs to be moved into the base budget to preserve 
enduring capabilities in your opinion?
    Answer. I believe we must continue to provide SOCOM with base 
budget resources sufficient to preserve long-term readiness of a global 
Special Operations Force. I understand that in the fiscal year 2013 
budget the Department moved roughly $1 billion from OCO to base funding 
and the intent is to continue this transition, although the current 
fiscal and strategic environment make that challenging.
    Question. In your view, can the size of Special Operations Forces 
be increased, while also maintaining the rigorous recruiting and 
training standards for special operators?
    Answer. I understand and agree with the concept that Special 
Operations Forces (SOF) cannot be mass produced, and I fully support 
SOCOM's efforts to maintain the quality of SOF operators and support 
personnel during this current era of SOF growth. Experience has shown 
that SOF manpower growth of 3 to 5 percent annually can be sustained 
and will not dilute the force or outpace the required training and 
support structure. This is the pace SOCOM has sustained to great effect 
over the past several years and is on track to sustain this year.
    Question. In recent years, Special Operations Forces have taken on 
an expanded role in a number of areas important to countering violent 
extremist organizations, including those related to information and 
military intelligence operations. Some have advocated significant 
changes to SOCOM's title 10 missions to make them better reflect the 
activities Special Operations Forces are carrying out around the world.
    Question. What current missions, if any, do you believe can and 
should be divested by SOCOM, and why?
    Answer. At this time, I do not advocate significant changes to 
SOCOM's title 10 missions. If confirmed, I would work with Commander, 
SOCOM, to better understand the command's missions, operations, and 
pressures and if I see that changes are needed I will offer proposals.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, what are they and why do you advocate adding 
them?
    Answer. I do not currently foresee any additional missions that 
SOCOM should assume. If confirmed, I would work with Commander, SOCOM, 
to review any additional missions that may be proposed.
    Question. What can be done to ensure that indirect special 
operations missions with medium- and long-term impact, such as foreign 
internal defense, receive as much emphasis as direct action, and that 
they receive appropriate funding?
    Answer. The activities of Special Operations Forces are quite 
varied, from high-risk strikes and counterterrorist raids conducted in 
minutes, to training and advising foreign counterparts conducted over 
months and years. Both require highly skilled operators, trained, 
organized, and equipped for the task. I believe that each of these 
activities is a highly valued capability for the U.S. Government that 
should be maintained and, if confirmed, I will ensure that the 
Department is adequately prepared for both.
                      unified command plan changes
    Question. It has been reported that Admiral McRaven, Commander of 
SOCOM, is seeking changes to the Unified Command Plan (UCP) and other 
authorities that he believes would allow SOCOM to better support the 
requirements of the Theater Special Operations Commands (TSOCs). 
Reportedly, such changes would give the Commander of SOCOM combatant 
command authority over the TSOCs--including responsibilities for 
resourcing--and provide for more rapid deployment of special operations 
forces to and between geographic combatant commands without the 
requirement for approval by the Secretary of Defense in every case. 
Operational control of deployed Special Operations Forces would 
reportedly remain with the respective geographic combatant commander. 
Some have expressed concern that such changes could raise problems 
related to civilian control of the military, infringe upon the 
traditional authorities of the geographic combatant commanders, and 
make it more difficult for Ambassadors and geographic combatant 
commanders to know what military personnel are coming into their areas 
of responsibility and what they are doing while they are there.
    Please provide your assessment of whether such UCP changes are 
appropriate and can be made without conflicting with civilian control 
of the military, infringing upon authorities provided to the geographic 
combatant commanders, or raising concerns with the State Department.
    Answer. It is my understanding that DOD is considering several 
initiatives to enhance the organization, training, equipping, and 
employment of Special Operations Forces to meet future global security 
challenges, including potential changes to the UCP and other guidance 
that establish command responsibilities and relationships. If 
confirmed, I look forward to seeing the recommendations from the Joint 
Chiefs of Staff and senior civilian leadership and will ensure these 
proposed changes preserve civilian control of the military principles, 
establish clear and appropriate command authorities, and support strong 
interagency relationships.
                          combating terrorism
    Question. What is your assessment of the threat posed by al Qaeda 
and associated forces to the U.S. Homeland, U.S. interests overseas, 
and western interests more broadly? Which affiliates and associated 
forces are of most concern?
    Answer. I assess that the threat posed by al Qaeda to the U.S. 
Homeland has been significantly diminished over the past 4 years. At 
the same time, al Qaeda's remaining leadership in Pakistan and al Qaeda 
in the Arabian Peninsula remain of greatest concern. Additionally, the 
Arab Spring has created new opportunities for al Qaeda affiliates in 
Syria and North Africa.
    What is your understanding of the Department's role in the U.S. 
strategy to combat terrorism?
    Answer. My understanding is that the U.S. Government is engaged in 
a multi-departmental, multi-national effort, and that key activities 
that the Department undertakes to support this strategy include: 
training, advising, and assisting partner security forces; supporting 
intelligence collection on al Qaeda; conducting information operations 
against al Qaeda; and, when appropriate, capturing or killing al Qaeda 
operatives. I understand that the Department also works to help enable 
our intelligence and law enforcement partners, both in the United 
States and overseas, in their efforts to counter this threat.
    Question. Are there steps the Department should take to better 
coordinate its efforts to combat terrorism with those of other Federal 
departments and agencies?
    Answer. Based on my current knowledge, it appears that the 
Department is properly coordinating its counterterrorism efforts with 
the rest of the U.S. Government. I understand that the U.S. military, 
Intelligence Community, and law enforcement agencies regularly 
collaborate on operations, and that departments and agencies constantly 
share intelligence, with little of the ``stovepiping'' that we saw 
before September 11. I will look at this closely if confirmed.
              intelligence support for indirect activities
    Question. Some observers contend that the national intelligence 
agencies focus their assistance to the Defense Department on special 
operators engaged in direct action operations. As a consequence, it is 
alleged, general purpose forces and Special Operations Forces engaged 
in indirect activities, including foreign internal defense and 
population protection, receive less intelligence support.
    Do you believe this is true? If so, and if confirmed, how would you 
ensure that general purpose forces and special operations forces 
engaged in indirect activities receive adequate intelligence support?
    Answer. It is my understanding that the Intelligence Community and 
DOD continue to expand intelligence support for a full range of 
military operations--direct and indirect--not only in Afghanistan, but 
across multiple areas of responsibility. The Department has invested in 
and employed innovative ISR capabilities increasing its intelligence 
and operations support to interagency and foreign partners in their 
efforts against emerging threats. DOD and the Intelligence Community 
have assisted our partners in Afghanistan, East Africa, the Arabian 
Peninsula, Colombia, and the Phillipines. I think that U.S. military 
operations around the world over the past few years have demonstrated 
that our general purpose forces are the beneficiaries of consistent, 
timely support from across the Intelligence Community. If confirmed, I 
will work to ensure that intelligence capabilities are properly aligned 
across the force for all missions.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan NDAA for Fiscal Year 
2005 (Public Law 108-375), as amended by subsequent bills, authorizes 
the provision of support (including training, funding, and equipment) 
to regular forces, irregular forces, and individuals supporting or 
facilitating military operations by U.S. Special Operations Forces to 
combat terrorism.
    What is your assessment of this authority?
    Answer. I understand that the section 1208 authority has been a 
very effective tool for U.S. Special Operations Forces (SOF) conducting 
counterterrorism operations to build effective security partners. 
Combatant commanders strongly support section 1208.
                         lord's resistance army
    Question. The President notified Congress in October 2011 of 
Operation Observant Compass (OOC), an operation to support the efforts 
of Ugandan and other regional militaries to remove Joseph Kony and 
other senior leaders of the Lord's Resistance Army (LRA) from the 
battlefield in Central Africa, and of his decision to send 
approximately 100 U.S. Special Operations Forces personnel to Central 
Africa to help regional partners achieve these goals. Despite pressure 
by the Ugandan People's Defense Forces and efforts by U.S. Special 
Operations personnel to support them, elements of the LRA--including 
Joseph Kony--continue to operate and commit atrocities against civilian 
populations in the Central African Republic, Democratic Republic of the 
Congo, and South Sudan. Congress recently passed and the President 
signed the NDAA for Fiscal Year 2013, which reiterated that the ongoing 
efforts to remove or apprehend Joseph Kony and his top commanders from 
the battlefield and end the atrocities perpetuated by his LRA should 
continue as appropriate to achieve the goals of the operation.
    Do you support OOC?
    Answer. Yes. My understanding is that Department support to 
regional counter-LRA efforts helps to advance regional security 
cooperation and security sector reform more broadly. If confirmed, I 
would seek to continue the U.S. commitment to deepen our security 
partnerships with African countries and regional organizations by 
expanding efforts to build African military capabilities through low-
cost, small-footprint operations. At the same time, I would work with 
the Department of State and other U.S. agencies and departments to seek 
to strengthen the capacity of civilian bodies and institutions to 
improve the continent's ability to provide security and respond to 
emerging conflicts. I would also regularly assess and review Department 
contributions to this mission to ensure the deployment of U.S. 
personnel is not open-ended.
    Question. What is your understanding of the objectives of OOC?
    Answer. U.S. Special Operations Forces under OOC seek to enhance 
the capacity of local forces to end the threat posed by the LRA. It is 
my understanding that U.S. military advisors are working with these 
forces to strengthen information-sharing and synchronization, enhance 
their operational planning, and increase overall effectiveness. While 
OOC is important in the effort to counter the LRA threat, there is not 
a purely military solution to this problem. If confirmed, I would 
support the current U.S. policy of pursuing a comprehensive, multi-
faceted strategy to help the governments and people of this region in 
their efforts to end the threat posed by the LRA and to address the 
impacts of the LRA's atrocities. The U.S. strategy to counter the LRA 
outlines four pillars for continuing support: increasing the protection 
of civilians; apprehending or removing Joseph Kony and senior 
commanders from the battlefield; promoting the defection, disarmament, 
demobilization, and reintegration of remaining LRA fighters; and 
increasing humanitarian access and providing continued relief to 
affected communities.
                       mass atrocities prevention
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10. What are your views on the role the United States plays 
in the prevention of mass atrocities and genocide?
    Answer. As President Obama noted in his speech at the Holocaust 
Museum last April, preventing and responding to atrocities is a 
critical mission and a core national security interest of the United 
States. As the President has made clear, we must look at a wide range 
of tools before military intervention. I support this view: we should 
make every effort to prevent crises from escalating, through every 
policy lever at our disposal, including diplomacy, assistance, and 
financial measures. I understand that the Atrocities Prevention Board 
has strengthened our efforts by developing more tools with which to 
work; I support these vital efforts
    Question. What are your views on the adequacy of the Department's 
tools and doctrine for contributing to this role?
    Answer. I understand that the Department has played an active role 
in the work of the Atrocities Prevention Board, working closely with 
other agencies to develop a range of tools that enhance the USG's 
ability to prevent and respond to atrocities. I also understand that 
DOD has strengthened its own capabilities, including by developing 
formal doctrine on mass atrocity response operations, for the first 
time, and incorporating atrocity prevention and response into policy 
and plans. If confirmed, I would continue these efforts.
             u.s. force posture in the asia-pacific region
    Question. The Defense Department's January 2012 strategic guidance, 
``Sustaining U.S. Global Leadership: Priorities for the 21st Century'', 
states that ``while the U.S. military will continue to contribute to 
security globally, we will of necessity rebalance toward the Asia-
Pacific region.'' Likewise, the 2010 report of the QDR states that the 
United States needs to ``sustain and strengthen our Asia-Pacific 
alliances and partnerships to advance mutual security interests and 
ensure sustainable peace and security in the region,'' and that, to 
accomplish this, DOD ``will augment and adapt our forward presence'' in 
the Asia-Pacific region.
    Do you feel DOD has adequate resources to implement the new January 
2012 strategic guidance?
    Answer. Congress passed and the President signed into law the BCA 
of 2011. The President insisted that the resulting defense cuts be 
driven by strategy and U.S. defense needs in the coming decade. I 
understand that the fiscal year 2013 DOD budget was shaped by the 
strategic guidance and reflects key mission and capability priorities 
emerging from the strategic review. If confirmed, I would continue to 
refine the focus of the Department's spending in future budget cycles 
and keep it in line with the President's strategic guidance. believe 
that the Department is facing hard but manageable cuts. The strategy is 
executable with the resource levels currently detailed in the BCA, but 
the potentially severe cuts stemming from sequestration would seriously 
threaten the Department's ability to implement the strategic guidance.
    Question. What do you see as the U.S. security priorities in the 
Asia-Pacific region?
    Answer. The maintenance of peace, stability, the free flow of 
commerce, and of U.S. influence in this dynamic region will depend in 
part on an underlying balance of military capability and presence. I 
believe that as a Pacific nation, the United States should, with its 
network of allies and partners, maintain an enduring defense presence 
in the Asia-Pacific region as a tangible demonstration of U.S. 
commitment to Asia's continued security and economic development.
    Question. What does the ``rebalance toward the Asia-Pacific 
region'' mean to you in terms of force structure, capabilities, and 
funding?
    Answer. The rebalance is broader than just military policies and 
programs; it is about harnessing every element of our national power to 
sustain a regional order rooted in economic openness, peaceful 
resolution to disputes, and democratic governance and political 
freedom, In terms of our force structure the rebalance places a renewed 
emphasis on air and naval forces while sustaining ground force 
presence. While rebalancing, it will also be important for the 
Department to develop new capabilities and investments to respond to 
changes in the security environment and technical advancements required 
to maintain an edge, our freedom of action, and ability to project 
power in the Asia-Pacific region. I believe that the rebalancing to 
Asia-Pacific is vital for U.S. future interests, but it can be done 
smartly, using air and sea and geographically distributed ground 
forces, without sacrificing the needed U.S. presence in the Middle 
East.
    Question. Do you believe that it is a ``necessity'' to rebalance 
the U.S. military toward the Asia-Pacific region? If so, why?
    Answer. I share the President's view that future U.S. economic and 
security interests will be closely tied to the Asia-Pacific. I have 
reviewed the Defense Strategic Guidance released last year, and agree 
that the emerging economic and political dynamism in the Asia-Pacific 
will require strong and continuous U.S. commitment.
    Question. Why, if at all, do you believe it is important for the 
U.S. military to maintain and even augment its forward presence in the 
Asia-Pacific region, and what are the advantages to having a forward 
presence?
    Answer. A robust U.S. military presence in the Asia-Pacific has 
underwritten peace and prosperity in the region for the past 60 years. 
The Department should be able to assure regional allies and partners, 
deter threats to regional stability, and prevail in conflicts if 
necessary. If confirmed, I would support the administration's effort to 
work towards a posture that is more geographically distributed--for 
example, the movement of forces to Guam and Australia; operationally 
resilient, with a focus on our sea based assets; and politically 
sustainable--meaning we must work with our partners and allies to 
address their concerns about U.S. presence, such as in Okinawa.
    Question. What is your assessment of the risks and benefits that 
are likely to result from this shift?
    Answer. This shift in U.S. posture is meant to continue supporting 
peace and prosperity in the Asia-Pacific region. U.S. forces should be 
present to effectively assure our allies and deter potential 
adversaries. By emphasizing the Asia-Pacific while also focusing on the 
Middle East, rebalancing will necessarily accept risk in other areas 
given the resource-constrained environment. I believe the risks 
associated with this rebalance are manageable. The potentially severe 
cuts stemming from sequestration, however, would seriously threaten the 
Department's ability to implement the strategic guidance, including the 
rebalance.
    Question. What changes, if any, in structure, equipment, and 
training do you believe will be necessary to meet the requirements for 
general purpose ground forces in an Asia-Pacific strategy?
    Answer. My understanding is that our military leadership is already 
working hard to ensure fielded capabilities enable our military 
personnel to think, train, and, if necessary, fight to succeed in this 
theater. The Department is already devoting significant effort to 
understanding how to operate in--or gain access to--those areas where 
our adversaries may try to deny us access and is developing the 
required operational concepts to manage that challenge. We will also 
need to build military-to-military ties and other relationships, as 
well as language and cultural expertise, to operate effectively in the 
Asia-Pacific region. If confirmed, I will work closely with the Joint 
Chiefs of Staff, Services, and Office of the Secretary of Defense 
leadership to assess any additional changes in structure, equipment, 
and training.
                                 china
    Question. How would you characterize the current U.S.-China 
relationship?
    Answer. I would describe the relationship as simultaneously 
possessing elements of cooperation and competition. The U.S.-China 
relationship, of which the defense component is only one part, is one 
of the most complex and important bilateral relationships in the world. 
The United States and China are working together to build a cooperative 
partnership based on practical cooperation in addressing shared 
regional and global challenges--a commitment President Obama and 
President Hu made in January 2011. At the same time, China is rapidly 
modernizing its military and increasingly asserting claims to territory 
in the East China Sea and the South China Sea.
    Question. From your perspective, what effect is China's expanding 
economy and growing military having on the region at-large and how does 
that growth influence the U.S. security posture in the Asia-Pacific 
region?
    Answer. China's expanding economy and growing military are 
developments the United States, allies, partners, and all other nations 
in the region must monitor carefully. On the one hand, China's growth 
and potential create an opportunity to cooperate where our interests 
and those of China converge. At the same time, China's rapid rise and 
the relative lack of transparency surrounding its intentions can be a 
source of anxiety and concern in the region. If confirmed, I will 
evaluate the impact of these developments--as well as the impact of 
other security trends--on requirements for the U.S. defense posture in 
the region.
    Question. What do you believe are the objectives of China's 
military modernization program?
    Answer. As I understand it, China is pursuing a long-term, 
comprehensive military modernization program designed to improve the 
capacity of its armed forces to fight and win high-intensity regional 
military operations of short duration. I understand that Taiwan 
contingencies remain the principal focus of much of this modernization, 
but there are growing indications that China is developing capabilities 
for missions that go beyond China's immediate territorial concerns, 
such as its counter-piracy operations off the Horn of Africa and 
noncombatant evacuation operations from Libya.
    Question. How do you believe the United States should respond to 
China's military modernization program?
    Answer. I believe the United States should continue to monitor 
developments in China's military modernization while encouraging 
Beijing to be more transparent about its military and security 
strategies, policies and programs. The U.S. response to China's 
military modernization should be flexible and supported by the 
continued evolution of our presence and force posture in the Asia-
Pacific region, the strengthening of our regional alliances and 
partnerships, the maintenance of our global presence and access, and 
the modernization of our own capabilities in such areas as countering 
efforts to deny us access and freedom of action.
    Question. U.S.-China military-to-military dialogue has been 
strained over the past several years and efforts to establish and 
maintain mutually beneficial military relations has been hampered by 
China's propensity for postponing or canceling military engagements in 
an apparent effort to influence U.S. actions.
    What is your view of the relative importance of sustained military-
to-military relations with China?
    Answer. I believe there is value in sustained--and substantive--
military dialogue with China as a way to improve mutual understanding 
and reduce the risk that miscommunication and misperception could 
result in miscalculation. If confirmed, I would look for ways to 
strengthen the U.S.-China military-to-military relationship consistent 
with our interests and our values.
    Question. Do you believe that we should make any changes in the 
quality or quantity of our military relations with China? If so, what 
changes would you suggest and, given Chinese resistance to military-to-
military dialogue, how would you implement them?
    Answer. If confirmed, I will seek ways to improve the U.S.-China 
military-to-military relationship, in terms of the quality and the 
quantity of exchanges between the Armed Forces of our countries. I 
would support continuing to pursue exchanges with the Chinese armed 
forces at all levels, and I would look to engage in a wide range of 
areas where we might find common ground to encourage China to act 
responsibly on the regional and global scene.
                              north korea
    Question. What is your assessment of the current security situation 
on the Korean peninsula?
    Answer. North Korea's provocative behavior, large conventional 
military, proliferation activities, ballistic missile program, and 
nuclear program continue to present a serious threat to the United 
States, our regional allies, and the international community. The 
opaque nature of the North Korean system, coupled with an uncertain 
political transition, adds to my concerns. North Korea's December 
missile launch, which was a violation of United Nations Security 
Council Resolutions, provided yet another example of North Korea's 
pattern of irresponsible behavior. If confirmed, I will work with our 
allies and other key partners in the region and internationally to 
ensure that we can deter and, if necessary, defeat North Korean 
aggression.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and WMD 
capabilities and the export of those capabilities?
    Answer. I am concerned about North Korea's WMD and ballistic 
missile programs because they present an immediate threat to our allies 
and partners as well as a growing threat to the United States. North 
Korea's December launch--using ballistic missile technology--
underscores our concerns about North Korea's continued pursuit of a 
long-range missile program. The United States will continue carefully 
monitoring, and impede, North Korea's WMD and missile development 
programs and related proliferation activities. If confirmed, I would 
ensure that the Department continues working closely with other parts 
of the U.S. Government to address North Korea's missile and WMD 
programs, take necessary steps to defend the United States and our 
allies, and enhance engagement with our allies to ensure that we can 
deter and, if necessary, defeat North Korean aggression.
    Question. In your view, what additional steps should the United 
States take to defend against the North Korean ballistic missile threat 
and dissuade North Korea from its continued pursuit of ballistic 
missile technology and to stop or slow North Korean proliferation 
missile and weapons technology to Syria, Iran, and others?
    Answer. The United States should continue to work to prevent North 
Korea's proliferation of weapons-related technology by advancing 
international nonproliferation norms and further tightening sanctions 
aimed at impeding development of North Korea's ballistic missile and 
nuclear programs. This includes cooperating with partner nations to 
inspect and interdict vessels and aircraft suspected of carrying 
illicit cargo. The United States should also seek to enhance bilateral 
and trilateral missile defense cooperation with our Republic of Korea 
(ROK) and Japanese allies, particularly in the area of information 
sharing. If confirmed, I would continue to work to strengthen the 
international consensus against proliferation; to invest in programs 
like the Proliferation Security Initiative, which bolsters the will and 
capacity of partner nations to interdict these dangerous shipments; to 
increase WMD-related information sharing with international partners; 
to take necessary steps to defend the United States and our allies; and 
to ensure that our ballistic missile defenses are able to defeat any 
North Korean attack.
       u.s. contributions to international peacekeeping missions
    Question. In testimony before the House Committee on Foreign 
Affairs on July 29, 2009, the U.S. Ambassador to the United Nations 
(U.N.) stated that the United States ``is willing to consider directly 
contributing more military observers, military staff officers, civilian 
police, and other civilian personnel--including more women I should 
note--to U.N. peacekeeping operations.'' General Dempsey has said the 
United States ``should consider opportunities for U.S. personnel to 
contribute to U.N. peacekeeping missions'' and that ``experience shows 
that even a small number of trained and experienced American 
servicemembers can have a significant, positive effect on U.N. 
operations.'' In your view, should the United States increase the 
number of personnel it contributes in the form of staff positions and 
military observers to U.N. peacekeeping missions and other 
international peace operations?
    Answer. I support in principle additional contributions of U.S. 
military personnel to key positions in U.N. peacekeeping operations 
where the mission is a strategic priority for the Department and the 
United States and where our servicemembers can add significant value to 
the mission effectiveness and efficiencies. I understand that, although 
we still provide military observers to U.N. peacekeeping missions, the 
Department has shifted its contributions almost exclusively to staff 
officer positions so as to maximize the returns on our investment.
    Question. In your view, what are the advantages and disadvantages 
of contributing additional military personnel to U.N. operations in the 
form of staff positions and military observer positions?
    Answer. The success of U.N. peacekeeping operations is important to 
the United States. I believe that the United States should continue to 
provide military personnel to U.N. peacekeeping operations, especially 
for key staff positions that help shape the direction and success of 
the mission. Such support must be practicable and weighed against the 
potential costs and competing demands for military commitments. If 
confirmed, I will carefully evaluate the costs of requested U.N. 
support against the potential positive impacts and U.S. interests.
           department of defense counternarcotics activities
    Question. DOD serves as the single lead agency for the detection 
and monitoring of aerial and maritime foreign shipments of drugs 
flowing toward the United States. On an annual basis, DOD's 
counternarcotics (CN) program expends approximately $1.5 billion to 
support the Department's CN operations, including building the capacity 
of U.S. Federal, State, and local law enforcement agencies, and certain 
foreign governments, and providing intelligence support on CN-related 
matters and a variety of other unique enabling capabilities.
    In your view, what is the appropriate role of DOD in counterdrug 
efforts?
    Answer. It is my understanding that the Department plays an 
important role in U.S. counterdrug efforts in support of the National 
Security Strategy, the National Drug Control Strategy, and the Strategy 
to Combat Transnational Organized Crime. The Department supports and 
enables U.S. agencies and foreign partners to be more effective in 
executing their respective counternarcotics responsibilities. In the 
Western Hemisphere, the allocation of DOD capabilities in support of 
U.S. law enforcement interdiction efforts has helped remove hundreds of 
tons of cocaine and deny billions in illicit revenues to transnational 
criminal organizations. I believe this support role is a sensible and 
effective indirect approach.
    Question. In your view, what should be the role of the United 
States in countering the flow of narcotics to nations other than the 
United States?
    Answer. Drug trafficking is by far the world's most lucrative 
illicit activity and therefore is often used as a source of revenue by 
terrorists, insurgents, and other actors threatening our national 
security. In my view, the consequences of narcotics flows beyond U.S. 
borders--for example, the role of drug trafficking in Afghanistan and 
the surrounding region is of particular concern to the Department. If 
confirmed, I look forward to working with Congress, the Office of 
National Drug Control Policy, other agencies in the U.S. Government, 
and military commanders to address the flow of illegal narcotics as it 
affects U.S. national interests.
       national strategy to combat transnational organized crime
    Question. The Director of National Intelligence recently described 
transnational organized crime as ``an abiding threat to U.S. economic 
and national security interests,'' and stated that ``rising drug 
violence and corruption are undermining stability and the rule of law 
in some countries.'' In July 2011, the President released his Strategy 
to Combat Transnational Organized Crime: Addressing Converging Threats 
to National Security. One of the priority action areas designated in 
the strategy is ``enhancing DOD support to U.S. law enforcement''.
    In your view, what role should DOD play in combating transnational 
organized crime and in training and equipping partner security forces 
that have been tasked with combating it?
    Answer. By law, the Department is the lead Federal agency for 
detection and monitoring of the aerial and maritime transit of illegal 
drugs into the United States. In the Western Hemisphere, DOD 
coordinates the efforts of the U.S. interagency and regional partners 
in the detection and monitoring of illicit aerial and maritime drug 
shipments towards the United States. It is my understanding that beyond 
that, the Department's role is to contribute unique capabilities in 
support of law enforcement, other U.S. Government departments and 
agencies, and international partners. That support takes multiple 
forms: military intelligence support to law enforcement; military-to-
military capacity building; broader capacity building support to 
foreign partner security services (including police forces); and 
counter threat finance support. believe the Department should continue 
to focus on delivering unique capabilities in support of other 
departments and agencies that have the lead for combating transnational 
organized crime.
                         counter threat finance
    Question. DOD and the Intelligence Community (IC) have begun 
investing more resources in identifying and tracking the flow of money 
associated with terrorist networks and illicit trafficking, but the 
opportunities for tracking and degrading illicit financing flows are 
not yet matched by the effort and resources devoted to them. 
Identifying and disrupting key individuals, entities, and facilitation 
routes enabling the flow of money that supports terrorism, production 
of IEDs, narco-trafficking, proliferation, and other significant 
national security threats could have an outsized impact on confronting 
these threats.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. Our Nation's adversaries, from drug traffickers to 
terrorists or insurgents, rely upon the flow of money to enable their 
activities. All available U.S. Government tools should be employed to 
track and disrupt the finances that support these groups, and the 
Department can bring unique tools to bear. My understanding is that the 
Department is not the lead U.S. agency in counter threat finance, but 
does work with other departments and agencies, and with partner 
nations, to fight our adversaries' ability to access and use global 
financial networks. For example, the Department has worked with the 
Intelligence Community and other interagency partners to identify and 
disrupt our adversaries' finances and remove key sources of insurgent 
funding in Afghanistan. I believe the Department should continue to 
work with law enforcement agencies to ensure military support is 
targeted, tailored, and in line with defense priorities.
    Question. Are there opportunities to replicate or improve upon the 
network-disruption efforts of groups like the Joint Improvised 
Explosive Device Defeat Organization or the Afghanistan Threat Finance 
Cell in impacting other facilitation networks?
    Answer. My understanding is that the Afghanistan Threat Finance 
Cell has been successful at disrupting illicit networks in Afghanistan 
through broad interagency cooperation. The Joint Improvised Explosive 
Device Defeat Organization's quick reaction and innovation has saved 
countless American lives. I believe that the capabilities involved in 
network disruption are worth institutionalizing into the Department. If 
confirmed, I will work with the Department's senior leadership and the 
interagency on this worthy effort.
    Question. In your view, how should DOD coordinate and interface 
with other key agencies, including the Department of Treasury and the 
Intelligence Community, in conducting counter threat finance 
activities?
    Answer. My understanding is that the Department works closely with 
the National Intelligence Manager for Threat Finance as well as the 
Department of Treasury's Assistant Secretary for Intelligence and 
Analysis. The Department also supports other U.S. Government 
departments and agencies and with partner nations to deny and disrupt 
adversaries' ability to use global licit and illicit financial networks 
to affect U.S. interests negatively. I believe the Department should 
continue to support law enforcement agencies, the Department of the 
Treasury, and the Intelligence Community with unique DOD capabilities, 
including planning, intelligence analysis and tools, and the 
integration of intelligence into operations.
                       central america and mexico
    Question. During a March 2012 Senate Armed Services Committee 
hearing, the Commanders of U.S. Northern Command and U.S. Southern 
Command discussed the increasingly dangerous region along the northern 
and southern borders of Mexico and the devastating impact transnational 
criminal organizations are having on the people and security of 
southern Mexico, Guatemala, Belize, Honduras, and El Salvador. The 
United States has increased its assistance in this region, but--to 
date--DOD has had only a small role.
    What are your views on the threats posed by transnational criminal 
organizations in this region?
    Answer. It is clear that transnational and domestic criminal 
organizations and gangs undermine the security of citizens in many 
parts of the Western Hemisphere. The influence of criminal elements has 
brought an increase in violence as well as an increase in narcotics and 
other illicit trafficking. The root causes of violent crime and 
insecurity are also influenced by endemic poverty and lack of economic 
opportunity, weak government institutions, and widespread corruption 
and impunity. Central America has become one of the most violent 
regions in the world, and this can be largely attributed to the 
influence of these elements. Criminal influences threaten regional 
stability and the fundamental security of an area that lies very close 
to the United States. I believe the United States has a clear interest 
in helping partner nations strengthen their security institutions 
consistent with U.S. values.
    Question. What is your assessment of DOD's role and current 
activities in Mexico and Central America?
    Answer. I have not had a chance to fully assess these issues, but I 
am aware that the Department is building defense relations with Mexico 
based on mutual interest. I am also aware that the Department has a 
wide range of activities and initiatives with partner nations in 
Central America, consistent with our values, shared interests and our 
partner's capacity. My understanding is that that engagements in both 
Mexico and Central America are broadly focused on defense planning and 
institutional reform, human rights training, counterdrug support and 
humanitarian assistance activities. I believe these roles and 
activities are appropriate to support our policies and strategies in 
the region, which focus on efforts to strengthen law enforcement, 
governance and rule of law institutions, while improving economic and 
social conditions that can contribute to insecurity.
    Question. What changes, if any, would you propose to DOD's current 
role and activities in this region?
    Answer. If confirmed, I would need to conduct a thorough review 
before being able to propose specific changes to the Department's roles 
and activities in this region. In general terms, however, I am 
supportive of leveraging the longstanding military-to-military 
relationships within the region to ensure our partner nations' defense 
institutions are capable and remain responsive to civil authorities, 
while being respectful of human rights.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. The importance of unity of effort and action remains one of 
the most critical lessons the Nation has learned from its experiences 
with counterinsurgency, counterterrorism, and stability operations in 
Iraq and Afghanistan. I believe that effective interagency 
collaboration can greatly improve the U.S. Government's preparedness to 
operate effectively in all phases of conflict. If confirmed, I will 
prioritize efforts to ensure interagency collaboration is as robust and 
effective as possible.
    Question. How do you believe these efforts can be improved?
    Answer. Interagency collaboration can always be improved. Ensuring 
that the U.S. military plans and trains with its civilian counterparts 
in other U.S. departments and agencies, and vice-versa, is one way to 
increase our unity of effort in the field. We also need a strong 
interagency planning process to ensure effective use of expertise from 
across the U.S. Government that recognizes each department's and 
agency's unique role and capabilities. I believe that robust civilian 
capabilities and resourcing are critical to achieving national security 
objectives and will be vital to the success of future operations.
    Question. How can the lessons learned in recent years be captured 
in military doctrine and adopted as ``best practices'' for future 
contingency operations?
    Answer. My understanding is that the Department has a variety of 
efforts devoted to capturing and disseminating best practices within 
the Department and to the interagency. The importance of 
institutionalizing lessons learned from the past 10 years of war was 
highlighted in the 2012 Defense Strategic Guidance. If confirmed I will 
continue this emphasis.
        intelligence reform and terrorism prevention act of 2004
    Question. The Intelligence Reform and Terrorism Prevention Act of 
2004 (IRTPA), among other actions, realigned the responsibilities for 
budgeting for and management of intelligence organizations between the 
Secretary of Defense and the head of the Intelligence Community, the 
Director of National Intelligence (DNI).
    What do you believe is the role of DOD in intelligence under IRTPA?
    Answer. The role of DOD, including the defense intelligence 
components, is clearly outlined in law. Under titles 10 and 50 of the 
U.S.C., the Secretary of Defense has broad responsibility for the 
intelligence and intelligence-related activities conducted by the 
Department's components. In addition, under title 50, the Secretary has 
several specific statutory responsibilities for elements of the 
Intelligence Community that are part of DOD, including the Defense 
Intelligence Agency, the National Security Agency, the National 
Geospatial-Intelligence Agency, and the National Reconnaissance Office. 
Consistent with the DNI's statutory responsibilities, the Secretary of 
Defense is responsible for the continued operation of those elements as 
effective organizations within the Department for the conduct of their 
missions in order to satisfy the requirements of the Department and the 
Intelligence Community.
    The Secretary, in consultation with the DNI, is also responsible 
for ensuring that the budgets of the Intelligence Community elements 
that are within the Department are sufficient to satisfy the overall 
intelligence needs of the Chairman of Joint Chiefs of Staff, the 
combatant commanders, and other departments and agencies. The Secretary 
is also responsible for the timely response of intelligence community 
elements within the Department to the needs of operational military 
forces. The Department strengthened its management of defense 
intelligence in 2002 by designating the Under Secretary of Defense for 
Intelligence (USD(I)) as lead for its intelligence reform efforts and 
Principal Staff assistant and advisor to the Secretary of Defense and 
Deputy Secretary of Defense regarding intelligence, counterintelligence 
(CI), and security matters.
    As a former member of the Senate Select Committee on Intelligence 
and the President's Intelligence Advisory Board, I have seen first-hand 
how the Intelligence Community and all its elements have become better 
integrated and cooperative and, if confirmed as Secretary of Defense, I 
look forward to furthering that cooperation.
    Question. Do you believe that the IRTPA strikes the correct balance 
between the duties and responsibilities of the Secretary and the DNI?
    Answer. Yes. I believe the duties and responsibilities of the 
Secretary and the DNI are well balanced under the IRTPA. The IRTPA 
appropriately provided the DNI strong authority to oversee and direct 
the implementation of the National Intelligence Program. As such, the 
DNI is responsible for establishing requirements and developing budgets 
as well as setting objectives and priorities for collection, analysis, 
production, and dissemination of national intelligence. The 
responsibility for execution of DOD intelligence activities remains 
with the Secretary. The Under Secretary of Defense for Intelligence 
also holds the position of the Director of Defense Intelligence in the 
Office of the DNI; the position was established to enhance integration, 
collaboration, and information sharing. If confirmed as Secretary of 
Defense, I will reinforce this strong and effective relationship with 
the DNI.
    Question. What changes in the IRTPA, if any, would you recommend 
that Congress consider?
    Answer. As of now, I would not recommend any changes to the IRTPA. 
If confirmed, I would address any proposed changes should the need 
arise.
                           strategic reviews
    Question. What is your understanding and assessment of the DOD 
processes for analysis, decisionmaking, and reporting results for each 
of the following strategic reviews:
    The QDR (section 118 of title 10, United States Code);
    Answer. The QDR is statutorily required, and sets a long-term 
course for the Department by assessing the opportunities and challenges 
that the Nation faces in the emerging global security environment. It 
provides an important opportunity to clearly and concisely articulate 
the national defense strategy and identify priorities for defense 
policy and force planning. Given the new defense strategy and the 
fiscal challenges the Nation is facing, I believe the upcoming QDR will 
be critical in setting the future path of the Department.
    Question. The National Military Strategy (section 153 of title 10, 
United States Code);
    Answer. The National Military Strategy outlines the ways and means 
for our military to ensure national security based on guidance from the 
National Security Strategy and the QDR. Section 153 of title 10 of the 
U.S. Code requires the Chairman of the Joint Chiefs of Staff to assist 
the President and Secretary of Defense in providing strategic direction 
for the Armed Forces. Because the Chairman prepares the National 
Military Strategy in consultation with the combatant commanders and the 
Joint Chiefs of Staff, I believe that it is the best military advice 
available for the Secretary of Defense. The Chairman also provides an 
annual risk assessment based upon the most current National Military 
Strategy.
    Question. Global Defense Posture Review (section 2687a of title 10, 
United States Code);
    Answer. My understanding is that the Department continuously 
reviews U.S. Global Defense Posture based in part on combatant command 
submissions of annual Theater Posture Plans. The Department has an 
executive-level oversight body, the Global Posture Executive Council 
(GPEC), composed of senior leaders from across the Department and 
including the Department of State. This body provides analysis and 
recommendations to the Secretary and Deputy Secretary of Defense. The 
Department submits an annual report to Congress that provides an 
overview of global defense posture strategy and the status of key 
overseas posture realignment actions. My assessment, at this time, is 
that the GPEC offers an appropriate forum for comprehensive analysis of 
key overseas posture issues.
    Question. The Quadrennial Roles and Missions (QRM) Review (section 
118b of title 10, United States Code).
    Answer. The QRM review is a statutorily required review of the 
roles and missions of the Armed Forces and the Department's core 
competencies and capabilities to perform and support these missions. My 
understanding is that the QRM is required every 4 years, most recently 
in 2012, and accordingly will be due again in 2016 submitted with or 
before the President's budget submission for the next fiscal year. I 
believe that the next few years will be very dynamic--both in world 
events and how our military can and should respond--and that the next 
QRM review will be very important to capturing the consequences of 
those changes.
    Question. If confirmed, what recommendations would you make, if 
any, to change title 10, U.S.C., and to improve DOD's processes for 
analysis, policy formulation, and decisionmaking relative to each 
review above?
    Answer. Based on my current understanding, at this time I would not 
request any changes to title 10, U.S.C. If confirmed and after 
reviewing Department processes relating to each review, I will make 
recommendations to Congress and the White House accordingly.
    Question. The QDR must examine the National Security Strategy as 
most recently updated by the President's January 2012 Defense Strategic 
Guidance (DSG). Noteworthy, the DSG states that the ``tide of war is 
receding''.
    Do you agree with that assessment and, if so, how might that 
influence your analysis and recommendations with regard to strategic 
priorities in the QDR?
    Answer. I agree that, with the drawdown of the war in Iraq and 
transition of security responsibilities in Afghanistan, our future 
security challenges will be defined less by the wars of the past decade 
and more by emerging complex threats. The Department remains committed 
to security in Afghanistan and Iraq, and our counterterrorism mission 
will remain a priority for the foreseeable future, but the Department 
needs to begin focusing on the mix of skills and capabilities and new 
technologies that will be needed in the future. The QDR should, 
therefore, examine the current and future security environment, to 
include changes since the 2012 Defense Strategic Guidance was released, 
and adjust strategic priorities as appropriate.
    Question. Section 118 in title 10, U.S.C. also requires the QDR to 
identify the budget plan that would be required to provide sufficient 
resources to execute successfully the full range of missions called for 
in that national defense strategy at a low-to-moderate level of risk, 
and any additional resources (beyond those programmed in the current 
Future Years Defense Program) required to achieve such a level of risk. 
The law also requires the QDR to make recommendations that are not 
constrained to comply with and are fully independent of the budget 
submitted to Congress by the President.
    If confirmed, how would you propose to structure the Department's 
QDR analysis and recommendations to address these two requirements?
    Answer. It would be my intent, if confirmed, to oversee a QDR 
process that begins with an assessment of U.S. interests, 
opportunities, and challenges, and concludes with the development of a 
defense program and budget designed to meet the resulting defense 
objectives we set at a low-to-moderate level of risk. If confirmed, I 
would intend to provide my honest appraisal of the resources required 
for defense.
    Question. In your view, is there analytical and/or practical value 
in a defense strategy that is unconstrained by or independent of the 
current budget request or fiscal environment?
    Answer. I think we must be aware of the fiscal environment when 
determining our defense strategy just as the strategy is informed by 
other important environmental factors, such as trends in military 
technology. That strategy must ensure that the U.S. military is be 
capable of meeting crucial national security priorities across the 
range of current and future potential threats.
                       tactical fighter programs
    Question. Perhaps the largest modernization effort that we will 
face over the next several years is the F-35 Joint Strike Fighter (JSF) 
program to modernize our tactical aviation forces with fifth generation 
tactical aircraft equipped with stealth technology.
    Based on current and projected threats, what are your views on the 
requirements for and timing of these programs?
    Answer. Dominance in the air is essential to the success of our 
forces. I understand that the F-35, which will replace several older 
generation aircraft in the Air Force, Navy, and Marine Corps, is 
intended to provide that dominance well into the future. I have not 
looked at the projected threats in detail; however I believe that other 
nations, notably China and Russia, have programs to build advanced 
aircraft that will challenge our current capabilities in the coming 
years. My view is that we cannot let any other nation achieve parity 
with the United States in the ability to control the air.
    Question. What is your assessment of whether the restructuring of 
the JSF program that we have seen over the past several years will be 
sufficient to avoid having to make major adjustments in ether cost or 
schedule in the future?
    Answer. I know that the Joint Strike Fighter is the Department's 
largest acquisition program and that it has experienced significant 
cost increases and schedule slips. I understand that the Department has 
already taken steps to tighten the contract terms for the F-35 and 
restructured the program in 2012 to reduce concurrency, the risk of 
being in production before development is finished. I have not had the 
opportunity to review this program or its restructuring in detail. If 
confirmed, I will make it a high priority to examine the health of this 
program to determine if it is on a sound footing and ensure the 
aircraft are delivered with the capability we need and a cost we can 
afford.
                           navy shipbuilding
    Question. Today's Navy is at its smallest size in decades and could 
decline further without additional shipbuilding efforts. Over the past 
several years, successive Chiefs of Naval Operations (CNOs) have 
concluded that the Navy requires a fleet of at least 313 ships to 
perform its mission. Despite this conclusion, the President's budget 
request for fiscal year 2013 proposed the decommissioning of nine 
ships--two dock landing ships and seven cruisers designed to last 
another 10 to 15 years, in order to address defense budget constraints 
and growing operating costs. Congress rejected the proposal noting the 
Navy's initial investment of $11.6 billion in the nine ships and the 
fact that cutting them creates unnecessary and unaffordable future 
shipbuilding requirements.
    What are your views regarding the CNO's conclusions about the 
appropriate size and composition of the fleet, and the adequacy of the 
Navy's current and projected plans to deliver that inventory of ships?
    Answer. A strong and capable Navy is essential to meet our Nation's 
strategic requirements across the spectrum of operational demands. 
Therefore, the Navy needs a broad set of capabilities among the mix of 
ships in its inventory. I understand the Chief of Naval Operations is 
currently analyzing the Navy shipbuilding goal and will present his 
analysis shortly. If confirmed, I will review these recommendations for 
the Navy's current shipbuilding plan and work with the Navy to ensure 
we have the right size, mix, and usage of our naval forces to meet our 
strategic goals.
    Question. In your opinion, how important is the requirement for a 
313 ship fleet on the ability of the Navy to support the national 
military strategy?
    Answer. I understand that the Navy's presently stated requirement 
is for a 313 ship fleet, but I do not yet know all the details of the 
mix and capabilities of our present and future fleet. I do know the 
United States requires a capable Navy that is robust enough to execute 
the full range of missions called upon by our combatant commanders in 
support of the National Security Strategy and Defense Strategic 
Guidance--including operating persistently across the globe, securing 
freedom of access, responding to crises, and projecting power into 
denied areas. If confirmed, I will work with the Navy and Congress to 
ensure naval forces are appropriately structured to meet our national 
defense needs.
    Question. Do you believe the Navy can meet its goals for the size 
of the fleet in the current budget climate?
    Answer. I believe the President's budget request for fiscal year 
2013 allowed the Navy to meet its current plan for the size of the 
fleet. However, the budget environment that we all are dealing with has 
introduced a good deal of uncertainty for the future of each of the 
armed services. If confirmed, I will work with the Secretary of the 
Navy and the Chief of Naval Operations to understand the impact of 
budget levels on the size of the fleet and how we work within the 
budget constraints to still meet mission requirements.
                           aircraft carriers
    Question. DOD has repeatedly reaffirmed that the United States is 
committed to maintaining a fleet of 11 nuclear powered aircraft 
carriers despite budget pressures, and maintaining 2 carriers on patrol 
in the Middle East. Yet, recent press accounts cite concerns by the 
Navy to maintain the carrier deployment schedule due to declining 
budgets. The Chief of Naval Operations recently stated ``Right now, we 
are committed to providing two carrier strike groups in the Arabian 
Gulf through March. We've been doing this since 2010, and we're 
committed to that, as I said, through this March. We need to take a 
look at that, and we will be, with the Joint Staff and the Services to 
see if we need to continue this.''
    What is your view of the impact of maintaining two carriers in the 
Arabian Gulf on U.S. strategic goals in the region?
    Answer. The Carrier Strike Group is a premier instrument supporting 
the warfighter and demonstrating U.S. resolve and commitment to allies 
around the world. In recent years the Navy has stepped up to meet 
increased demands to support operations in the Middle East, as well as 
to counter other tensions in the region. This support has been critical 
to our goals in the region. If confirmed, I will work with the Navy to 
ensure that we allocate our resources to ensure the level of presence 
necessary to meet our Nation's world-wide strategic goals.
    Question. What are your views about the requirement to maintain a 
fleet of 11 aircraft carriers?
    Answer. I understand that the Department's recent strategic reviews 
indicate that an 11-carrier force is the correct size to support our 
current strategy and provide sufficient carrier strike groups to meet 
overseas presence requirements. However, I also understand that 
increased combatant commander demands for carrier strike groups over 
the past 3 years have stressed the carrier force. Carriers are an 
essential tool given the strategic focus on the Asia-Pacific, an 
inherently maritime theater, and the Middle East, an increasingly 
maritime theater, and the requirement to conduct operations in multiple 
regions simultaneously. If confirmed, I will work with the Navy to 
ensure that we resource a sustainable level of presence that continues 
to support the strategic goals.
                        future role of the army
    Question. In a speech at West Point in February 2011, former 
Secretary of Defense Robert Gates argued that it is unlikely that the 
Nation will commit large land forces to future conflicts, and that the 
Army must ``confront the reality that the most plausible, high-end 
scenarios for the U.S. military [will be] primarily naval and air 
engagements.'' Accordingly, the Army will find it difficult to justify 
the number, size, and cost of its heavy forces. The Defense Strategic 
Guidance, announced in January 2012, echoed that prediction and 
indicated that ground forces would not be sized to conduct large scale 
long-term stabilization operations.
    Do you agree with Secretary Gates assertion that the commitment of 
land forces, on the scale of Iraq or Afghanistan, is unlikely in the 
future? Why or why not?
    Answer. We will continue to need the best Army in the world. But 
the best Army does not mean the largest. We must have the Army be 
appropriately sized for the contingencies we deem likely, and it also 
must be trained and modernized. Our forces must be able to conduct 
operations across the spectrum of conflict and adapt to the security 
environment as it changes. However, given that we must make choices in 
today's fiscal and security environment, I agree that large-scale, 
long-term stabilization operations is an area where we can take risk in 
the future.
    Question. Do you agree that high-end military operations will 
primarily be naval and air engagements such that the Army will have 
difficulty justifying the size, structure, and cost of its heavy 
formations?
    Answer. The Nation needs a robust balance of capabilities in each 
of the warfighting domains--air, sea, and ground. These capabilities 
can and should be complementary of one another--capabilities in one 
domain need not come at the expense of those in another. Furthermore, I 
know from my experience that war is an inherently human endeavor. As 
long as this nation faces adversaries with large, capable ground 
forces, the United States will need an Army with diverse and flexible 
capabilities, which include heavy forces.
    Question. General Raymond Odierno, Chief of Staff of the Army, has 
stated that the Army will continue to be an indispensable part of the 
joint force and that there is a synergy that is gained of all the 
services in order for the military to meet the Nation's needs. He has 
also said the Army provides more than Brigade Combat Teams--the Army is 
the largest contributor to Special Operations Forces and it provides a 
broad range of essential services to combatant commanders to include 
ISR; air and missile defense; logistical support; and signal 
communication support.
    In your view, what are the most important considerations or 
criteria for aligning the Army's size, structure, and cost with 
strategy and resources?
    Answer. The most important considerations are our national security 
requirements. Our security environment and strategy requires the Army 
to have the appropriate size and structure to be able to support 
steady-state operations to shape the environment and deter potential 
adversaries, while simultaneously supporting contingency operations to 
defeat any potential adversary should deterrence fail.
    Question. If confirmed, what actions, if any, would you propose to 
properly align the Army's size and structure with the requirements of 
security strategies and the likely availability of resources?
    Answer. The Department should align the Army's size and structure 
to the strategy in the same way it would align those of any other 
component of the joint force: based on appropriate security scenarios, 
examining the demands of the missions that are most relevant to that 
component and then determining how best to provide the capabilities 
required to accomplish those missions. During this period of budget 
austerity, some tradeoffs across the force may be necessary. If 
confirmed, I will work closely with military and civilian leaders to 
balance maintaining the skills needed to meet our most pressing 
national security demands within the limits of acceptable risk.
                          army force structure
    Question. The Defense Strategic Guidance of January 2012 calls for 
the reduction of Army end strength and force structure over the next 5 
years to 490,000 personnel and 8 fewer combat brigades. Army analysis 
underway and decisions still pending could add a third maneuver 
battalion to the modular armored and infantry brigades requiring a 
further reduction in the total number of Active component brigades to 
support such a redistribution of personnel.
    If confirmed, what guidance would you give the Army regarding 
priorities for planning, decisions, and execution with respect to the 
identification and deactivation of the planned eight and anticipated 
additional brigade deactivations?
    Answer. If confirmed, I would provide the same guidance I would 
give to any Service, which would be to figure out what is in the best 
interest of the Nation's security as expressed in the National Security 
Strategy and Defense Strategic Guidance. The Army, and the other 
Services, must use a holistic approach to ensure our forces are 
organized, manned, trained, equipped, and stationed to best incorporate 
the lessons of the last decade, while remaining ready for the kinds of 
challenges we will face in the future.
    Question. If confirmed, will you prioritize for deactivation those 
brigades based overseas before those based in the United States?
    Answer. If confirmed, I would prioritize the selection of brigades 
for deactivation based on how best to meet the Nation's global strategy 
and objectives while minimizing negative impact on Army families and 
communities and ensuring we maintain our treaty obligations and 
commitment to our allies. I cannot say now whether that results in 
prioritizing overseas units versus U.S.-based units, but, if confirmed, 
I will look comprehensively at this issue. I recognize that any force 
structure reduction will affect Army communities, and I expect that the 
Army and DOD will work with those communities to help minimize the 
impact.
    Question. In your view, can the Army's Active component end 
strength be drawn down below the announced and planned reduction to 
490,000? If so, what in your view would be the impact on strategic 
risk, if any, and, in your view would that strategic risk be acceptable 
or unacceptable?
    Answer. Independent of size, we must maintain the best Army in the 
world. If fiscal pressures compel us to consider further reductions of 
any Service, I plan to study tradeoffs and fully understand the risks 
to our strategy before recommending further cuts. But the size of the 
force should be driven by mission requirements.
    Question. What is your understanding and assessment of the current 
size and structure of the Army's Reserve component? If confirmed, what 
size or force structure changes, if any, would you propose for either 
the Army Reserve or the Army National Guard?
    Answer. The Active and Reserve components of the Army, as parts of 
the entire force, must be sized and shaped to support our strategy. One 
of the foundations of the All-Volunteer Force is the Army National 
Guard with the critical capabilities it provides to the Governors and 
States, in addition to the tremendous support that it provides for 
Federal missions at home and abroad. Another foundation is the Army 
Reserve, which has been a key partner with the Active Army and the Army 
National Guard throughout many diverse missions. However, as the needs 
of the Nation change, I expect that the capabilities and capacities 
resident in the Army National Guard and the Army Reserve may also have 
to change. If confirmed, I will review the results of ongoing studies 
on recommended composition and size before I propose future changes to 
Reserve component end strength.
                           army modernization
    Question. According to a recent study done for the Secretary of the 
Army by former Assistant Secretary of the Army Gilbert Decker and 
retired Army General Louis Wagner, the Army has sunk $3.3 billion to 
$3.8 billion annually since 2004 into weapons programs that have been 
cancelled. The report states that, ``The Army lacks a credible, 
quantitative model and process for determining realistic, achievable 
requirements for modernization and recapitalization given reduced 
budgets.'' The Army has implemented many of the recommendations made in 
the report.
    What is your assessment of the Army's modernization record?
    Answer. I understand that the Army has terminated several large 
acquisition programs in the past, which gave rise to the study 
commissioned by Secretary McHugh in 2010. These program terminations 
were caused by a variety of factors, to include the Army's reliance on 
immature technologies as solutions to very complex and evolving 
military requirements. These factors significantly impacted program 
cost and delivery schedule. I understand that the Army has undertaken 
efforts to address the root causes of these prior terminations in 
current and future acquisition programs. If confirmed, I will emphasize 
the need for sound, cost-informed planning regarding the Army's 
acquisition efforts and work with the Army to continue to address these 
root causes.
    Question. What actions, if any, would you take to ensure that the 
Army achieves a genuinely stable modernization strategy and program?
    Answer. If confirmed, I will closely monitor and oversee the Army's 
acquisition efforts to ensure that stable and affordable modernization 
strategies are adopted and implemented. To this end, I will emphasize 
the need for Army acquisition programs that incorporate sound and 
realistic development strategies, affordable and technically feasible 
requirements, and--to the fullest extent practicable--adequate and 
stable resources. I understand that these are necessary ingredients for 
success in acquisition programs.
    Question. What is your understanding and assessment, if any, of the 
Army's capabilities portfolio review process and its current 
modernization priorities and investment strategy?
    Answer. It would be premature for me to currently assess the Army's 
specific processes for reviewing military requirements or setting 
modernization priorities. I understand that the Capability Portfolio 
Reviews are designed to provide a comprehensive examination of Army 
requirements in an effort to validate their operational value and 
inform the programming and budgeting processes. This holistic approach 
makes sense to me, but if confirmed, I will work with Army leadership 
to review their processes.
    Question. What actions, if any, would you take to sustain the 
momentum of these reviews in stabilizing the Army's modernization 
strategy and priorities?
    Answer. If confirmed, I would encourage and support the Army to 
take any necessary steps to properly define its equipment modernization 
requirements and priorities. I would closely monitor the outcome of 
these processes and support the Army's implementation of a successful 
modernization strategy.
    Question. What is your assessment of the Army's implementation of 
the recommendations of the Decker-Wagner Acquisition Report?
    Answer. I understand that the actions to implement the approved 
recommendations in the 2010 report commissioned by Secretary McHugh are 
either complete or underway. If confirmed, I will review the Army's 
implementation of the recommendations and work to ensure that they are 
reflected in ongoing and future modernization efforts.
                          unfunded priorities
    Question. What is your position on allowing the Service Chiefs to 
respond to Congress with a list of critical unfunded priorities not 
included in the President's budget request?
    Answer. If confirmed, I plan to continue the Department's current 
policy whereby the Service Chiefs may communicate their unfunded 
requirements directly to Congress, once they have informed me of those 
requirements.
                       ballistic missile defense
    Question. In September 2009, President Obama announced that he had 
accepted the unanimous recommendation of the Secretary of Defense and 
the Joint Chiefs of Staff to pursue a Phased Adaptive Approach (PAA) to 
missile defense in Europe. This approach is intended to defend all of 
Europe against existing and emerging threats from Iranian missiles, 
starting in 2011 and increasing in capability with each of its four 
phases. Phase 4 of the European PAA is intended to provide a capability 
to defend against long-range missiles that could reach the United 
States, thus augmenting the existing Homeland missile defense 
capability.
    Do you support the Phased Adaptive Approach to missile defense in 
Europe and, if confirmed, will you implement it?
    Answer. Yes. I support the European Phased Adaptive Approach 
(EPAA). If confirmed, I will ensure the Department continues to support 
implementation of EPAA.
    Question. In February 2010, the Defense Department issued its 
report on the first-ever comprehensive review of U.S. ballistic missile 
defense policy and strategy, the Ballistic Missile Defense Review 
(BMDR), as required by Congress. The BMDR established a number of 
policy priorities, including establishing defense against near-term 
regional missile threats as a top priority of missile defense plans, 
programs and capabilities. It also stated the policy of sustaining and 
enhancing the ability of the Ground-based Midcourse Defense system to 
defend the homeland against attack by a small number of long-range 
missiles by countries such as North Korea and Iran, and of hedging 
against future uncertainties.
    Do you support the policies, strategies, and priorities set forth 
in the Ballistic Missile Defense Review and, if confirmed, will you 
implement them?
    Answer. Yes. I support the administration's policies, strategies, 
and priorities as set forth in this review, and, if confirmed, I will 
implement them.
    Question. The two most recent flight tests of the Ground-based 
Midcourse Defense (GMD) system failed to intercept their targets. The 
Missile Defense Agency (MDA) formed a Failure Review Board to determine 
the root cause of the failure and developed a plan to correct it, 
including flight tests to confirm the correction. Until the flight 
tests confirm the correction, MDA has suspended production of the Exo-
atmospheric Kill Vehicles (EKVs) of the type that failed in the 
previous flight tests, in order to ensure that those EKVs do not 
contain a flaw that would need to be corrected later.
    Do you agree that it is a high priority to correct the failure of 
the GMD system kill vehicle and demonstrate through flight testing that 
the system works as intended?
    Answer. I'm not familiar with the technical details associated with 
these flight test failures, but in general I would agree that for any 
system, but especially for a national missile defense system, it is 
important to correct failures and demonstrate effectiveness as quickly 
as possible.
    Question. Do you agree that it is prudent to verify that the flight 
test failure problem has been corrected before resuming production of 
additional EKVs?
    Answer. I am not in a position to express a technical opinion on 
the right course of action, but in general it would seem prudent to 
demonstrate system effectiveness before committing to production. This 
is in line with the administration's principle of ``fly before you 
buy''.
    Question. Do you support the continued enhancement and sustainment 
of the Ground-based Midcourse Defense system?
    Answer. I very strongly believe that we should sustain and enhance 
our national missile defense to protect the Nation from limited ICBM 
attack by states like North Korea and Iran.
    Question. Do you support the modernization of the Exo-atmospheric 
Kill Vehicle, which is based on 20-year-old technology?
    Answer. Yes. I understand that the Exo-Atmospheric Kill Vehicle 
(EKV) is a key component of the Ground-based Midcourse Defense System 
that we rely on to protect the United States.
    Question. Would you agree to study the feasibility, advisability, 
cost, and potential advantage of deploying additional ground based 
interceptors in the United States, including at a site located on the 
east coast of the United States?
    Answer. I understand that such a study is required by the NDAA and, 
if confirmed, I will ensure the Department executes the NDAA for Fiscal 
Year 2013 direction to analyze potential locations for another 
continental United States (CONUS)-based missile defense site and to 
conduct environmental impact surveys.
    Question. The United States and NATO are seeking options to 
cooperate with Russia on missile defense. President Obama has announced 
that such cooperation would not limit U.S. or NATO missile defense 
capabilities.
    Do you agree that such cooperation could enhance the security of 
the United States, NATO, and Russia against common missile threats from 
nations such as Iran?
    Answer. Yes. I agree that missile defense cooperation with Russia 
has the potential to enhance the security of the United States, NATO, 
and Russia. I also agree with President Obama's commitment to ensure 
that such cooperation will not limit U.S. or NATO missile defense 
capabilities.
    Question. Do you agree that, irrespective of Russian objections, 
the United States is committed to the continued development and 
deployment of U.S. missile defense systems, including qualitative and 
quantitative improvements to such systems, to defend the homeland, our 
forward-deployed troops, and allies and partners overseas?
    Answer. I agree that the United States is committed to continue to 
develop and deploy missile defenses, including qualitative and 
quantitative improvements consistent with the Ballistic Missile Defense 
Review. The President is on record as saying, and I agree, that the 
United States cannot accept limits on its BMD systems or expose 
information that would put our missile defense systems at risk. The 
President has made clear the need to ensure our missile defense systems 
are capable of defeating the most likely threat we face from North 
Korean and Iranian missiles. It makes sense to explore approaches to 
missile defense cooperation that improve transparency and reassure 
Russia that the U.S. missile defense system does not undermine Russia's 
strategic deterrent.
                                 space
    Question. China's test of an anti-satellite weapon in 2007 was a 
turning point for the United States in its policies and procedure to 
ensure access to space. As a nation heavily dependent on space assets 
for both military and economic advantage, protection of space assets 
became a U.S. national priority.
    Do you agree that space situational awareness and protection of 
space assets should be a national security priority?
    Answer. Yes. Space situational awareness is foundational to all 
space activities, and enables the United States to maintain the 
strategic advantages we derive from space-based capabilities.
    Question. In your view, should China's continued development of 
space systems inform U.S. space policy and programs?
    Answer. Yes. U.S. space policies and programs should be informed by 
China's continued development of space systems, including its 
multidimensional counterspace program, as well as by the range of other 
actors that make the space environment increasingly congested, 
contested, and competitive.
    Question. If confirmed, would you propose any changes to national 
security space policy and programs?
    Answer. At this time, I am unaware of any necessary changes and if 
confirmed, I would plan to continue to implement the President's 2010 
National Space Policy and the 2011 National Security Space Strategy. If 
I find need for changes in the future, I would propose them.
    Question. Do you support the space code of conduct as a non-binding 
agreement among nations that utilize outer space?
    Answer. Yes. An international code of conduct for space 
activities--a non-binding arrangement among nations that utilize 
space--would enhance our national security by helping to maintain the 
long-term sustainability, safety, stability, and security of space. As 
more countries and companies field space capabilities, a code could 
encourage responsible behavior and single out those who would act 
otherwise, while reducing the risk of mishaps, misperceptions, and 
mistrust.
    Question. If confirmed, would you commit to reviewing the overall 
management and coordination of the national security space enterprise?
    Answer. I understand that there has been a recent reorganization of 
the management and coordination of the national security space 
enterprise, including the establishment of the Defense Space Council, 
and the confirmation of the Secretary of the Air Force as the Executive 
Agent for Space. This reorganization has resulted in improvements in 
information flow across the Department and among U.S. departments and 
agencies, and has also improved the process for acquisition and policy 
decisions. If confirmed, I will commit to review this reorganization to 
ensure continued progress.
    Question. What is your view on weapons in space?
    Answer. If confirmed, I would continue to implement the 2011 
National Security Space Strategy, which states that ``it is in the 
interests of all space-faring nations to avoid hostilities in space,'' 
and the President's 2010 National Space Policy, which states that ``all 
nations have the right to explore and use space for peaceful 
purposes.'' The National Space Policy also directs the Secretary of 
Defense to develop capabilities, plans and options to deter, defend 
against, and, if necessary, defeat efforts to interfere with or attack 
U.S. or allied space systems.
    Question. The administration is proposing to free up 500 MHz of 
spectrum for broadband use, a candidate portion of which includes the 
band 1755-1850 MHz, which is used heavily by DOD and other national 
security agencies.
    Do you support this initiative?
    Answer. I fully support the national economic and security goals of 
the President's 500 MHz initiative to make spectrum available for 
commercial broadband use, the implementation of more effective and 
efficient use of limited radio-frequency spectrum and the development 
of solutions to meet these goals.
    Question. Do you support section 1602 of Public Law 106-65, which 
requires the Secretaries of Commerce and Defense and the Chairman of 
the Joint Chiefs of Staff to certify that any alternative band or bands 
to be substituted for spectrum currently used by DOD and other national 
security agencies provide ``comparable technical characteristics to 
restore essential military capability that will be lost as a result of 
the band of frequencies to be so surrendered''?
    Answer. I fully support section 1602 of Public Law 106-65. This 
provision is absolutely critical to protecting and maintaining our 
warfighting capabilities. This statutory requirement is intended to 
ensure the Department is provided access to alternate spectrum before 
surrendering any spectrum critical for national security capabilities. 
Any spectrum reallocations and auctions should provide sufficient time 
for evaluation and certification of such alternate spectrum so that 
national security operations are not put at risk.
    Question. If confirmed, how do you intend to comply with section 
1602 in light of the 500 MHz initiative?
    Answer. If confirmed, I will ensure the Department continues to 
conduct operational and cost-feasibility analysis to guarantee that 
spectrum-dependent national security capabilities are preserved, while 
supporting the economic benefits spectrum provides to our Nation.
    Question. Do you intend to insist that DOD be compensated fully for 
the cost of relocating, if required to do so?
    Answer. Yes. In order to relocate national security capabilities 
that rely on spectrum, while maintaining mission effectiveness, the 
Department must have alternate spectrum with comparable technical 
characteristics, full cost reimbursement for modifying complex weapons 
systems, and adequate time to make the transition.
    Question. How do you propose the Department make more efficient use 
of communications spectrum through leasing of commercial satellites?
    Answer. I understand that both the National Security Space Strategy 
and the Department of Defense Space Policy indicate that the Department 
will make use of commercial systems to the maximum extent practicable. 
I am not familiar with all the details, but will review this more 
thoroughly, if confirmed.
    Question. Do you support more competition in the launch of DOD 
payloads?
    Answer. Yes. in general I favor competition in contracting--to 
include new competitors that can meet certification standards.
    Question. If confirmed, what steps will you take to encourage new 
entrants to the medium and heavy lift launch of DOD payloads while 
balancing affordability, mission assurance, and maintaining the 
viability of the existing launch provider?
    Answer. I understand that the Department has developed criteria to 
certify new space launch vehicles capable of reliably launching 
national security satellites and will openly compete up to 14 space 
launches in the next 5 years, while guaranteeing the existing launch 
provider at least 28 launches.
    Question. Do you support commercial hosting of DOD payloads and if 
so how?
    Answer. Hosted payloads are one of the ways to enhance resilience 
and assure space capabilities in the congested, contested, and 
competitive space environment. If confirmed, I would support innovative 
approaches to improve the national security benefits we derive from 
space in a budget-constrained environment, including through the use of 
hosted payloads.
    Question. What is your long-term vision and support for the Space-
Based Infrared Sensing System (SBIRS)?
    Answer. I understand that the SBIRS provides advanced early warning 
of hostile missile threats, allowing our warfighters to take swift and 
precise action. If confirmed, I would support the Department's 
continued efforts to define the future architecture necessary to 
provide early warning.
    Question. Do you support splitting the systems sensors up to lower 
overall cost of the system?
    Answer. I understand that the Department of Defense Space Policy 
requires the consideration of resilience in space architecture 
development. Splitting space sensors may be one way to achieve 
resilience. If confirmed, I will look at options for improving 
resilience in this system.
                           strategic systems
    Question. Over the next 5 years DOD will begin to replace or begin 
studies to replace all of the strategic delivery systems. For the next 
15 plus years, DOD will also have to sustain the current strategic 
nuclear enterprise. This will be a very expensive undertaking.
    Do you support the President's intent, stated in his message to the 
Senate on the New START treaty (February 2, 2011), to modernize or 
replace the triad of strategic nuclear delivery systems?
    Answer. I support the President's commitment to a safe, secure, and 
effective nuclear deterrent as long as nuclear weapons exist. I believe 
that providing necessary resources for nuclear modernization of the 
Triad should be a national priority. I understand the Department is 
currently modernizing, replacing, or studying recapitalization options 
for each leg of the Triad.
    Question. Do you have any concerns about the ability of the 
Department to afford the costs of nuclear systems modernization while 
meeting the rest of the DOD commitments?
    Answer. I am not able to make a judgment on this at this time; 
however, if confirmed, I will assess the costs to ensure that we 
protect critically important nuclear systems modernization while 
meeting other defense commitments. We must continue to aggressively 
scrutinize each of our programs to ensure we maintain critical 
capabilities in a fiscally responsible manner.
    Question. The Department is committed to modernizing our nuclear 
command and control system, do you support that commitment?
    Answer. I do. An effective, reliable Nuclear Command, Control, and 
Communication (NC3) system is a vital component of a safe, secure, and 
effective nuclear deterrent. NC3 systems provide the President 
redundant and assured capability to execute U.S. nuclear forces under 
any scenario and are a critical element in ensuring crisis stability 
and deterrence.
               u.s. cyber command personnel requirements
    Question. The Commander of U.S. Cyber Command (CYBERCOM) in 
conjunction with the Chiefs of the Military Services and other elements 
of DOD, is now seriously engaged in defining the numbers and 
qualifications of personnel required to conduct the offensive, 
defensive, and intelligence missions of the Command in support of the 
combatant commands and the defense of the Nation in cyberspace. 
Preliminary indications are that the numbers of exceptionally qualified 
operators are going to be substantial. Secretary Panetta committed to 
report to the Committee on Armed Services as early as possible this 
year how the Department would address these serious manpower and 
training requirements.
    Do you believe that the strategy, operational concepts, and 
operational assumptions that underpin CYBERCOM's force planning have 
received sufficient critical scrutiny and analysis?
    Answer. I understand that the Department's leadership has invested 
significant effort analyzing the threat, reviewing the force planning 
model, and is currently addressing how to implement the proposed model. 
If confirmed, I will review this analysis and implementation plan.
    Question. Can the Military Services' current personnel systems and 
practices produce and sustain the number of highly qualified cyber 
operators that CYBERCOM believes are required, especially in light of 
end strength reductions and declining budgets?
    Answer. Recruiting, training, and retaining military and civilian 
personnel needed for cyber operations will be a challenge. This is a 
high priority area for the Department with regard to investment of both 
resources and management oversight and, if confirmed, I will review 
these systems and practices.
    Question. Should consideration be given to providing the Commander 
of CYBERCOM personnel authorities similar to those granted to the 
Commander of SOCOM?
    Answer. If confirmed, I will seek the advice of the Joint Chiefs of 
Staff and senior civilian staff of the Department before recommending 
any additional authorities for CYBERCOM.
                            cyber deterrence
    Question. Do you believe we are deterring and dissuading our 
adversaries in cyberspace?
    Answer. At this time, it appears that the United States has 
successfully deterred major cyber attacks. I expect that deterring and, 
if necessary, defeating such attacks will be a continued key challenge. 
If confirmed I intend to ensure that the Department provides strong 
support to our national efforts in this area.
                       u.s. cyber command status
    Question. The Chairman of the Joint Chiefs of Staff has recommended 
that U.S. CYBERCOM be elevated from a sub-unified to a full unified 
command. The NDAA for Fiscal Year 2013 includes a Sense of the Congress 
resolution calling for consultation with Congress before a Presidential 
decision is made to make CYBERCOM a unified command, and asking for 
consideration of a number of issues associated with such a decision.
    Do you believe it would be advisable to consult with Congress prior 
to making a decision to elevate CYBERCOM to a unified command?
    Answer. Yes. If confirmed, I will ensure consultation with 
Congress.
    Question. As the current Commander of the sub-unified CYBERCOM is 
dual-hatted as the Director of the National Security Agency (NSA), what 
are your views on the wisdom of having an intelligence officer serve as 
a unified combatant commander, rather than a line officer with broad 
training and command experience?
    Answer. My sense is that dual-hatting the commander of CYBERCOM and 
the Director of NSA has worked well to date. However, if confirmed, I 
will review specifics of the dual-hatted relationship and assess 
whether it should continue in the future. I recognize that NSA support 
is critical to CYBERCOM's mission given the technical capabilities 
required to operate in cyberspace. In addition, I recognize that the 
CYBERCOM commander requires significant understanding of the 
intelligence community's capabilities and processes to execute his or 
her missions effectively. However, I am also aware of concerns about 
the dual-hatted relationship and, if confirmed, will carefully consider 
these concerns.
    Question. Do you believe that CYBERCOM is mature enough to become a 
unified command, and that policy, strategy, operational planning, and 
rules of engagement to govern operations in cyberspace are sufficiently 
developed to justify this step?
    Answer. My understanding is that the Department has made 
significant progress since CYBERCOM's creation in 2009. This includes 
issuance of a comprehensive strategy for military operations in 
cyberspace. In addition, I am told that CYBERCOM is expanding its 
integration into the Department's deliberate planning, and that the 
Chairman, with the approval of the Secretary of Defense, will issue a 
new set of rules of engagement governing all military operations, 
including cyber operations, in the near future. If confirmed, I will 
evaluate the maturity of the command and will consult closely with the 
Chairman of the Joint Chiefs, combatant commanders, and Congress prior 
to any decisions with respect to CYBERCOM.
         china's aggressive theft of u.s. intellectual property
    Question. A recent report by the National Counterintelligence 
Executive confirmed the widespread belief that China is engaged in a 
massive campaign to steal technology, other forms of intellectual 
property, and business and trade information from the United States 
through cyberspace. The current Commander of CYBERCOM has referred to 
this as the greatest transfer of wealth in history and, along with 
others, believes this is a serious national security issue.
    Do you believe that China's aggressive and massive theft of 
technology in cyberspace is a threat to national security and economic 
prosperity?
    Answer. I believe that the theft of intellectual property and other 
sensitive information threatens the United States' military advantage 
and economic prosperity. If confirmed, I will work within the 
Department and with other departments and agencies to address this 
threat.
    Question. What steps, if any, do you believe are needed to deter 
China from such activities in the future?
    Answer. I am not in a position to recommend specific policies, 
guidance, or changes to authorities at this time. I understand that the 
Department is enhancing its cyber defense programs and those of certain 
defense industrial base networks, as well as improving its ability to 
identify the origins of intrusion. If confirmed, I will consider what 
diplomatic and public engagement as well as other actions that should 
be taken to address this challenge.
          dod's role in defending the nation from cyber attack
    Question. What is your understanding of the role of DOD in 
defending the Nation from an attack in cyberspace? In what ways is this 
role distinct from those of the Homeland security and law enforcement 
communities?
    Answer. My understanding is that DHS has the lead for domestic 
cybersecurity. Thus, DHS coordinates national protection, prevention, 
mitigation, and recovery in significant cyber incidents. The Defense 
Department provides technical assistance to DHS when requested. The 
Department's role is to provide the military forces needed to deter the 
adversary, and if necessary, act to protect the security of the 
country. This includes planning against potential threats to our 
critical infrastructure, gathering foreign threat intelligence, and 
protecting classified networks. I believe that the defense, homeland 
security, and law enforcement communities should work together, and 
with our private sector partners to improve network defenses, share 
information on cyber threats, and ensure swift response to threats when 
they manifest themselves.
    Question. Do you believe that defending the Homeland mission will 
require both offensive and defensive cyber forces and tools?
    Answer. If confirmed, this is an area I will review closely. My 
current view is that defending the Homeland from cyber attacks should 
involve the full range of tools at the disposal of the United States, 
including diplomacy and law enforcement as well as any authorized 
military operations.
    Question. This new mission will require substantial resources, 
including personnel. How do you envision generating these additional 
resources in the face of reduced budgets and declining end strength?
    Answer. The current fiscal situation will force hard choices across 
a range of priority missions, including cyber. If confirmed, I will 
consult closely with military and civilian leaders in the Department, 
the President, and Congress in finding the right balance.
                                  iran
    Question. What is your assessment of the military and political 
threat posed by Iran?
    Answer. Iran poses a significant threat to the United States, our 
allies and partners, and our interests in the region and globally. Iran 
continues to pursue an illicit nuclear program that threatens to 
provoke a regional arms race and undermine the global non-proliferation 
regime. Iran is also one of the main state-sponsors of terrorism and 
could spark conflict, including against U.S. personnel and interests. 
Iran is also actively investing in the development of a range of 
conventional capabilities, including air, missile, and naval assets 
that have generated regional anxieties and could threaten our interests 
and personnel in the region.
    Question. What is your assessment of U.S. policy with respect to 
Iran?
    Answer. I believe that President Obama has put in place and pursued 
effectively--with support from the U.S. Congress--a strong, multi-
vector strategy to deal with the threats that Iran poses to the United 
States, particularly its nuclear pursuits. This strategy has included a 
strong diplomatic effort to test Iranian intentions, lay the ground 
work for an international coalition that holds Tehran accountable for 
its transgressions, and isolate Iran in the region and globally. This 
strategy has also included the application of smart, unprecedented, and 
effective sanctions against the Iranian regime that has sharpened its 
choices significantly. Lastly, this strategy has credibly, and smartly 
in my opinion, made clear that all options are on the table. I believe 
that this strategy has made it clear to Iran that the United States 
will do what it must to prevent Iran from acquiring a nuclear weapon, 
and I will continue to implement this policy if confirmed.
    Question. In your view, what has been the effect of sanctions 
against Iran--how effective have they been?
    Answer. I believe that the President with significant help from the 
U.S. Congress, has been able to bring the world community together to 
confront Iran with effective sanctions. As a result of these sanctions, 
Iran's financial, trade, and economic outlook has deteriorated 
significantly. International financial institutions estimate that 
Iran's economy contracted in 2012 for the first time in more than 2 
decades. Iran's access to foreign exchange reserves held overseas has 
diminished. Additionally, the Iranian currency--the rial--reached an 
all-time low in mid-October, losing more than half its value since the 
start of 2012. Inflation and unemployment are also growing. As the 
economic outlook for Iran continues to worsen and as the U.S. continues 
to reinforce our pressure track along with the International Community, 
I believe that pressure is building on Iran.
    Question. You have said that ``Washington should make clear that 
everything is on the table with Tehran--an end to sanctions, diplomatic 
recognition, civil nuclear cooperation, investment in Iran's energy 
sector, World Bank Loans, World Trade Organization membership, Iraq, 
Afghanistan, regional security arrangements, etc.--if Iran abstains 
from a nuclear weapons program, ends support for terrorist groups, 
recognizes Israel, and engages in more constructive policies in Iraq.''
    Do you still hold this view?
    Answer. I do believe that if Iran lives up to international 
obligations, it should have a path to a more prosperous and productive 
relationship with the international community and eventual rejoining of 
the community of nations. The other choice is clear as well--if Iran 
continues to flout its international obligations, it should continue to 
face severe and growing consequences. While there is time and space for 
diplomacy, backed by pressure, the window is closing. Iran needs to 
demonstrate it is prepared to negotiate seriously.
    Question. In March 2012, President Obama said ``when it comes to 
preventing Iran from obtaining a nuclear weapon, I will take no options 
off the table, and I mean what I say. That includes all elements of 
American power: A political effort aimed at isolating Iran; a 
diplomatic effort to sustain our coalition and ensure that the Iranian 
program is monitored; an economic effort that imposes crippling 
sanctions; and, yes, a military effort to be prepared for any 
contingency.''
    Do you agree with the President's view that ``all options should be 
on the table'' to prevent Iran from obtaining a nuclear weapon?
    Answer. I agree with the President that the United States should 
take no options off the table in our efforts to prevent Iran from 
acquiring a nuclear weapon. If confirmed, I will focus intently on 
ensuring that U.S. military is in fact prepared for any contingency.
              countering iran's ballistic missile threats
    Question. Iran has hundreds of short- and medium-range ballistic 
missiles today that are capable of reaching forward-deployed U.S. 
forces, allies, and partner nations in the CENTCOM AOR. The Ballistic 
Missile Defense Review Report of February 2010 stated that the United 
States intends to pursue a phased and adaptive approach to ballistic 
missile defense tailored against such missile threats in various 
regions, including the Middle East.
    Do you agree that such a phased adaptive approach will provide 
CENTCOM with the missile defense capabilities needed to defend our 
forward deployed forces and our allies and partners in the region 
against Iranian ballistic missile threats?
    Answer. While I have not looked into the details of the phased 
adaptive approach, I believe this approach includes the appropriate 
steps to protect the United States as well as our forces and interests 
overseas. If confirmed, I will work to ensure the President continues 
to propose a budget sufficient to support our ballistic missile defense 
priorities, balanced with competing priorities, and consistent with the 
projected capabilities of missile defense systems to deal with the 
anticipated threats.
    Question. What role do you see for the Aegis Ballistic Missile 
Defense system with Standard Missile-3 interceptors in U.S. regional 
missile defense capabilities against Iran's ballistic missiles?
    Answer. My understanding is that today, U.S. Aegis combatants 
equipped with Standard Missile-3s are on station and protecting U.S. 
forces, partners, and allies in the Middle East as well as Europe 
against Iran's ballistic missiles. My expectation is that this 
capability will continue to evolve.
    Question. In addition to U.S. missile defense capabilities in the 
CENTCOM AOR, what role do you see for other nations in the AOR to 
contribute to regional missile defense capabilities, such as UAE's 
plans to purchase the Terminal High Altitude Area Defense system?
    Answer. Recognizing that global demand for BMD will likely exceed 
the U.S. supply, it is appropriate for the United States to seek 
appropriate burden-sharing arrangements with partners and allies in the 
CENTCOM area and other regions. Such arrangements can increase the 
quantity of missile defense assets in support of U.S. regional 
deterrence and security goals. If confirmed, I will encourage those 
contributions to our mutual defense needs.
    Question. The Intelligence Community assesses that, with sufficient 
foreign assistance, Iran may be technically capable of flight testing 
an ICBM capable of reaching the United States by 2015. What should the 
United States do to hedge against this possibility?
    Answer. I understand that, with the deployed Ground-based Midcourse 
Defense system, the United States is currently protected against the 
threat of limited ICBM attack from states like Iran and North Korea. As 
noted in the 2010 Ballistic Missile Defense Review, it is important 
that we maintain this advantageous position by hedging against future 
uncertainties. If confirmed, I would continue the current efforts to 
prepare options in case the threat changes or if the development of new 
technical capabilities is delayed.
                    u.s.-israel defense cooperation
    Question. In recent years, the NDAA has supported close cooperation 
and substantial funding for a number of critical missile defense and 
rocket defense programs for the state of Israel, including the Arrow 
system, the Arrow-3 interceptor, David's Sling, and the Iron Dome 
system.
    In your view, should the United States continue to support such 
joint cooperation and funding for these programs?
    Answer. Yes. I am proud of the work that the United States has done 
in support of the ballistic missile defense of Israel and, if 
confirmed, I will continue to support these efforts. Missile defense is 
a core area of U.S.-Israel joint cooperation. The importance of these 
efforts came to the forefront with Israel's recent Operation Pillar of 
Defense in Gaza. Throughout the 8 days of the operation, Hamas and the 
Palestinian Islamic Jihad launched over 1,506 rockets into Israel. 
Focusing only on these that posed a real threat to populated areas, 
Iron Dome intercepted 421 rockets with an overall intercept rate of 
approximately 85 percent--saving the lives of countless Israeli 
civilians. This highlights the importance of the work that the United 
States is doing with the Israelis on all layers of missile and rocket 
defense, and if confirmed, I will work to continue and expand this 
cooperation.
            dod's cooperative threat reduction (ctr) program
    Question. The CTR program is focused on eliminating WMD in the 
states of the former Soviet Union and other nations around the world. 
Its key objectives include: (1) eliminating strategic nuclear weapons; 
(2) improving the security and accounting of nuclear weapons and 
weapons-usable fissile material; (3) detecting, eliminating, and 
preventing the proliferation of biological and chemical weapons and 
capabilities; and (4) encouraging development of capabilities to reduce 
proliferation threats. The current CTR umbrella agreement between the 
Russian Federation and the United States will expire at the end of May 
2013, and it has been reported that the Duma does not support extending 
the umbrella as it is currently written at this time.
    Do you support extending this umbrella agreement?
    Answer. Yes. On December 3, 2012, President Obama said, ``If Russia 
believes the CTR agreement hasn't kept pace with the changing 
relationship between our countries, we should update it.'' If 
confirmed, I will support continuation of the nonproliferation 
cooperation with Russia supported by the CTR Umbrella Agreement.
    Question. Do you support continued cooperation with the Russian 
Federation to eliminate WMD in Russia?
    Answer. Yes. U.S. and Russian efforts to secure and eliminate WMD 
have made both countries safer, and have proven to be a productive area 
of cooperation.
    Question. Do you support the use of metrics to assess the progress 
of the CTR programs and to ensure individual programs complete their 
objectives?
    Answer. Yes. Metrics are an important tool in ensuring efficient 
execution of the CTR program.
    Question. In your view, are Russia and the former Soviet Union 
countries making a significant contribution to efforts to reduce the 
proliferation threats they inherited?
    Answer. My understanding is that the Russian Federation and several 
other states of the Former Soviet Union have contributed in many ways 
to reduce threats posed by WMD that they inherited. I understand that 
the Department supports these efforts through the CTR program, which 
helps secure nuclear materials, destroy chemical weapons, and reduce 
the threat from especially dangerous pathogens. Russia and several of 
its neighbors also made important contributions to the Nuclear Security 
Summits held in Washington and Seoul.
    Question. Do you think the CTR program is well-coordinated among 
the U.S. Government agencies that engage in threat reduction efforts in 
Russia, e.g., DOD, the Department of Energy, and the State Department?
    Answer. My understanding is that CTR and other nonproliferation 
programs executed by Federal agencies are coordinated well through the 
leadership of the National Security Staff. If confirmed, one of my 
priorities as Secretary of Defense will be to ensure that all of the 
Department's activities in this area are well-coordinated with 
interagency partners.
    Question. As the CTR program expands to geographic regions beyond 
the states of the former Soviet Union, in your view what proliferation 
prevention and threat reduction goals should the DOD establish or focus 
on?
    Answer. My understanding is that the President has highlighted 
nuclear and biological terrorism as key threats, and that the CTR 
program strongly supports these priorities. I agree with these 
priorities.
    Question. Do you support extending the CTR program to nations in 
the Middle East, especially with respect to containing Syrian chemical 
weapons?
    Answer. My understanding is that the CTR program is authorized to 
undertake activities in the Middle East. The main objective of this 
expanded authority is to enhance the capacity of regional partners, 
particularly the nations that border Syria, to mitigate the threat to 
their territory posed by the potential loss or use of Syria's chemical 
weapons. If confirmed, I would continue to support this effort.
    Question. Do you support extending the CTR program to nations in 
Africa, especially with respect to biological materials?
    Answer. Yes. based on my current understanding, I believe it makes 
good sense to continue to expand the CTR program's geographic reach 
beyond the former Soviet Union. Any cost effective steps we can take to 
keep terrorists from accessing dangerous biological agents by 
partnering with other nations are especially important in regions like 
East Africa where active terrorist threats converge with emerging 
infectious diseases.
                          prompt global strike
    Question. The 2010 QDR concluded that the United States will 
continue to experiment with prompt global strike prototypes. There has 
been no decision to field a prompt global strike capability as the 
effort is early in the technology and testing phase.
    In your view, what is the role for a conventional prompt global 
strike capability in addressing the key threats to U.S. national 
security in the near future?
    Answer. I understand that the Department continues to assess a 
broad range of conventional strike capabilities to address current and 
emerging threats. Conventional prompt global strike weapons could 
provide the President with unique conventional capabilities in certain 
scenarios that include fleeting or otherwise inaccessible time-
sensitive targets for example. I understand, however, that there are 
concerns about this operational concept. At this point, I believe that 
it makes sense to assess potential approaches to conventional prompt 
global strike. If confirmed, I will look forward to further discussions 
with Congress on this topic.
    Question. What approach to implementation of this capability would 
you expect to pursue if confirmed?
    Answer. I understand the Department is continuing to conduct 
research and testing to support the development of concepts and 
technologies for boost-glide systems that could provide the basis for a 
conventional prompt global strike capability. If confirmed, I will 
review implementation options.
    Question. Do you support a competitive procurement of prompt global 
strike systems if they progress to a milestone B stage?
    Answer. In general, where viable options exist, I think the 
Department should take maximum advantage of a competitive procurement 
process.
               nuclear weapons and stockpile stewardship
    Question. Congress established the Stockpile Stewardship Program 
with the aim of creating the computational capabilities and 
experimental tools needed to allow for the continued certification of 
the nuclear weapons stockpile as safe, secure, and reliable without the 
need for nuclear weapons testing. The Secretaries of Defense and Energy 
are statutorily required to certify annually to Congress the continued 
safety, security, and reliability of the nuclear weapons stockpile.
    As the stockpile continues to age, what do you view as the greatest 
challenges with respect to assuring the safety, reliability, and 
security of the stockpile?
    Answer. I understand that the Stockpile Stewardship Program has 
ensured that our nuclear weapons stockpile remains safe, secure, and 
effective without the use of underground nuclear weapons testing. At 
the same time, the challenge we face is that some aspects of today's 
nuclear complex are in need of repair or replacement. If confirmed, I 
will continue to work with the Department of Energy to ensure the 
safety, security, and reliability of our stockpile, and the 
modernization of the nuclear weapons complex infrastructure.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. The modernization of the National Nuclear Security 
Administration (NNSA) infrastructure and life extension of our nuclear 
weapons are critical to sustaining a safe, secure, and effective 
nuclear deterrent. If confirmed, I will work to ensure appropriate 
funding levels and cost-effective management for these efforts, which 
will require a substantial and sustained fiscal commitment.
    Question. Prior to completing this modernization effort, do you 
believe it would be prudent to consider reductions below New START 
treaty limits for either the deployed or nondeployed stockpile of 
nuclear weapons?
    Answer. I believe that we should make necessary investments in 
infrastructure modernization regardless of potential future nuclear 
weapon reductions. I understand that the New START treaty does not 
limit nondeployed warheads; if confirmed I will ensure that the 
stockpile, including both deployed and nondeployed nuclear warheads, 
sustains the credibility of the U.S. deterrent, including our 
commitments to extend deterrence to U.S. allies.
    Question. What role does the Nuclear Weapons Council (NWC) play in 
helping to establish key stockpile stewardship goals and modernization 
objectives?
    Answer. The NWC is the primary interface for coordinating nuclear 
weapons enterprise issues between DOD and the Department of Energy. I 
understand that its current top priority is to address stockpile life 
extension and nuclear infrastructure modernization in the current 
fiscal environment.
    Question. Do you support a more active role of the Office of Cost 
Analysis and Program Evaluation (CAPE) in ensuring the programs within 
the Department of Energy and the NNSA are appropriately tailored for 
the best investment of funds possible to achieve a safe, effective, and 
reliable nuclear weapons stockpile?
    Answer. I am not familiar enough with the degree of CAPE's 
involvement with the Department of Energy and the NNSA to make that 
determination at this time. I understand that CAPE has worked closely 
with NNSA over the past year to review NNSA programs, and if confirmed, 
will closely consider CAPE's appropriate role in this regard in the 
future.
                   medical countermeasures initiative
    Question. The administration has produced an interagency strategy 
for the advanced development and manufacture of medical countermeasures 
(MCM) to defend against pandemic influenza and biological warfare 
threats. In this strategy, DOD will be responsible for the rapid 
development and manufacture of medical countermeasures to protect U.S. 
Armed Forces and Defense Department personnel.
    Do you support this interagency strategy and the MCM Initiative 
and, if confirmed, would you plan to implement them?
    Answer. I am very concerned about the threat of biological weapons. 
I support assigning to the Department the responsibility for protecting 
the U.S. Armed Forces and Defense Department personnel with rapid 
development and manufacturing of medical countermeasures. If confirmed, 
I will need to look into the specific plans associated with the 
interagency strategy of the Medical Countermeasure Initiative. I would 
do my best to implement the administration's strategy, consistent with 
any statutory guidance and available funding.
                       defense acquisition reform
    Question. The Weapon Systems Acquisition Reform Act of 2009 (WSARA) 
is designed to ensure that new defense acquisition programs start on a 
sound footing, to avoid the high cost of fixing problems late in the 
acquisition process.
    What are your views regarding WSARA and the need for improvements 
in the Defense acquisition process?
    Answer. I believe that our weapons systems acquisition process has 
substantial room for improvement. My understanding is that WSARA, which 
enacted a number of steps to improve many aspects of weapons system 
acquisition, has been largely implemented by the Department and that it 
is improving the Department's acquisition performance, but that more 
needs to be done. I am aware the Department is continuing to implement 
the remaining provisions of WSARA and other acquisition improvement 
initiatives. If confirmed, I will review these efforts to ensure that 
they are adequate and I will continue to work with Congress and our 
industry partners to improve the way we acquire systems for the 
Department.
    Question. If confirmed, how would you improve all three aspects of 
the acquisition process B requirements, acquisition, and budgeting?
    Answer. Close coordination of these three processes is essential to 
improving the Department's ability to acquire services and systems and 
to obtain the best value for every defense dollar. Since WSARA's 
enactment, progress appears to have been made in regard to closer 
integration of these three processes, but I do not believe that this 
work is complete. In my view, requirements must be feasible and 
affordable, there must be an executable plan to acquire the products 
that meet those requirements, and there must be an adequate budget 
established to conduct the program and acquire the product. If 
confirmed, I will work to bring requirements, acquisition, and 
budgeting into close alignment by ensuring that the individuals 
responsible for these three aspects of acquisition work in conjunction 
with one another and not in isolation.
    Question. If confirmed, how would you improve acquisition 
accountability?
    Answer. I support a chain of command for the acquisition process 
that provides for the clear responsibility and accountability that was 
established by the Goldwater-Nichols Act in the 1980s. For major 
programs, this chain of command begins with the Defense Acquisition 
Executive and runs through DOD component head to the Service or 
Component Acquisition Executive, the Program Executive Officer, and the 
Program Manager. If confirmed, I will hold these individuals 
accountable for acquisition system performance.
    Question. Do you believe that the current investment budget for 
major systems is affordable given increasing historic cost growth in 
major systems, costs of current operations, and asset recapitalization?
    Answer. I have not yet reviewed DOD's investment budget in detail 
or the balance between major systems investments, operations, and 
recapitalization. However, it is clear to me that pursuing only 
affordable programs and controlling costs throughout a product's life 
cycle are critical in any financial environment. All programs must be 
closely managed to avoid cost growth, and the affordability of any new 
requirements must be carefully scrutinized at the outset--before the 
program is authorized. If confirmed, I will examine the investment 
budget closely for near and long-term affordability, taking into 
consideration the potential for cost growth. I will also assess the 
sustainability of the balance between the various accounts that make up 
the Department's budget, including the investment, operations, and 
asset recapitalization portions of the budget.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. My understanding is that the Department has been imposing 
affordability cost caps on new programs for over 2 years for both 
production and sustainment costs. These caps are being used to force 
trade-offs between capability and costs early in a program's life 
cycle. If confirmed, I will strongly support the imposition and 
enforcement of these cost caps. I will also work with the Department 
and industry to ensure that we stay on budget and on schedule. DOD and 
the taxpayer cannot afford the excessive cost growth that has plagued 
some programs in the past.
                     reliability of weapons systems
    Question. The Department's process for procuring major weapons 
systems places insufficient emphasis on reliability and maintainability 
and, therefore, produces systems that are increasingly costly to 
operate and sustain. Given that these ownership costs comprise most of 
a given weapons systems' overall lifecycle cost, these increased costs 
could undermine considerably the Department's ``buying power''.
    How would you ensure that the defense acquisition system produces 
more reliable weapons systems?
    Answer. I believe that the key to obtaining necessary reliability 
is to establish effective incentives and, when necessary, to enforce 
the consequences of failure to meet established standards. If 
confirmed, I will ensure that the acquisition system takes this 
approach to achieving the needed reliability performance for its 
weapons systems.
      excessive concurrency in major defense acquisition programs
    Question. Major defense acquisition programs (MDAP) have 
experienced excessive cost-growth and schedule delays due to, among 
other things, too much of an overlap between development and 
production. This has exposed these systems to a high risk of costly new 
discoveries requiring redesign and retrofit late into operational 
testing or production.
    What more can be done to ensure that the defense acquisition system 
safeguards against excessive concurrency in MDAPs?
    Answer. I am not an expert in this field; however, my understanding 
is that some limited degree of concurrency between development and 
initial production can often be the most efficient way to structure a 
weapons system program. However, the Department has in some cases, such 
as the F-35 Joint Strike Fighter, taken too much risk with concurrency, 
committing to production well before the design was tested enough to 
know that it was mature and stable. If confirmed, I will work to ensure 
that the risks of concurrent development and production are fully 
understood and taken into account by acquisition decisionmakers before 
a program enters production.
                        procurement program risk
    Question. Another major cause of excessive cost growth and schedule 
delays in how the Department procures major weapons systems and major 
automated information systems (in particular, ``enterprise resource 
planning'' systems, which are vital to defense financial improvement 
and business transformation), relates to the Department's inability to 
identify, price, and therefore effectively manage program risk, (e.g., 
technological, developmental, integration, and manufacturing risk).
    How would you improve the defense acquisition system to ensure that 
the Department can more effectively and timely address all types of 
risk in its major defense procurement programs to better ensure the 
delivery of needed combat capability on time and on budget?
    Answer. I believe the early identification, management, and 
mitigation of program risk is a critical element of any well-managed 
acquisition program. I understand that the Department, through 
implementation of WSARA and other ongoing initiatives, is working to 
improve early planning efforts to better understand risks and to put in 
place steps that will remove and/or mitigate them prior to the 
commitment of a major investment in product development or initial 
production. My view is that new product development inherently involves 
risk and that the risk of any new product development must be actively 
managed if the program is to be successful. If confirmed, I will review 
the adequacy of these initiatives and their effectiveness.
                          services contracting
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, has DOD become too reliant on contractors to support 
the basic functions of the Department?
    Answer. Although I understand that DOD has been taking steps in 
recent years to reduce its reliance on contractors, I believe DOD must 
continue to manage its workforce in a way that avoids inappropriate or 
excessive reliance on contractor support for basic Department 
functions, while also meeting its obligations to perform work 
efficiently and effectively and to be a good steward of taxpayer 
resources. If confirmed, I will ensure that the Department implements a 
workforce strategy that aligns functions and work among military, 
civilian, and contracted services in a cost effective, and balanced 
manner consistent with workload requirements, funding availability, and 
laws and regulations.
    Question. If confirmed, how do you plan to address the issue of 
cost growth in services contracting and ensure that the Department gets 
the most for its money in this area?
    Answer. If confirmed, I will continue the efforts of the 
administration and the Department to improve the visibility and 
accountability of contracted services by expanding and refining the 
data we collect from contractors, as required by statute, in order to 
compare it to our civilian and military workforce planning factors.
    Question. U.S. military operations in Iraq and Afghanistan have 
relied on contractor support to a greater degree than previous U.S. 
military operations. According to widely published reports, the number 
of U.S. contractor employees in Iraq and Afghanistan has often exceeded 
the number of U.S. military deployed in those countries.
    Do you believe that DOD has become too dependent on contractor 
support for military operations?
    Answer. At this time I don't have enough information to make an 
assessment. While many support functions for military operations are 
appropriate for contract support, some are more closely associated with 
work that should be performed by government employees (military or 
civilian), or other Federal agencies. I am aware of recent 
recommendations made by the Commission on Wartime Contracting and the 
GAO regarding such dependence and, if confirmed, I will support ongoing 
efforts to implement those recommendations as appropriate.
    Question. What risks do you see in the Department's reliance on 
such contractor support? What steps do you believe the Department 
should take to mitigate such risk?
    Answer. Reliance on contractor support can lead to operational risk 
if contractors fail to perform or perform outside the scope of 
appropriately defined roles. Our experiences in Iraq and Afghanistan 
have also shown that additional risk is introduced when there is poor 
government oversight, further increasing the potential for fraud, 
waste, and abuse. We also know that government oversight is critical to 
ensure appropriate contractor interaction with local communities.
    If confirmed, I will support the Department's ongoing efforts to 
minimize any over-reliance on contractors and ensure the appropriate 
mix of military, civilian, and contract personnel in theater. I will 
also review the Department's progress in implementing recommendations 
made by the Commission on Wartime Contracting, the GAO, and the 
legislative mandates in the NDAA regarding operational contracting 
requirements including considerations for contract support as part of 
the national military strategy, the QDR, and the Chairman's annual risk 
assessment.
    Question. Do you believe the Department is appropriately organized 
and staffed to effectively manage contractors on the battlefield?
    Answer. I do not have enough information yet to make a full 
assessment of this issue. However, I believe that investments made over 
the last few years in the Department's acquisition workforce, as well 
as the implementation of recommendations made by the Commission on 
Wartime Contracting and the GAO, have vastly improved the Department's 
ability to effectively manage contractors on the battlefield. If 
confirmed, I will continue to improve our capabilities in this critical 
area.
    Question. What steps if any do you believe the Department should 
take to improve its management of contractors on the battlefield?
    Answer. At this time I don't have enough information to identify 
specific steps or actions necessary to improve management of 
contractors on the battlefield. If confirmed, I will work with the 
Chairman, the Joint Chiefs, the combatant commanders, and other 
Department leadership to ensure commanders in the field have the 
necessary resources and access to information to effectively manage 
contract support and mitigate against potential risks.
                      private security contractors
    Question. Federal agencies including DOD have spent more than $5 
billion for private security contractors in Iraq and Afghanistan over 
the last decade. Over this period, there have been numerous reports of 
abuses and questionable activities by private security contractors in 
both countries.
    Do you believe DOD and other Federal agencies should rely upon 
contractors to perform security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations?
    Answer. I believe it may be appropriate to use private security 
contractors for specific security functions in contingency operations 
when they are limited by specific rules for the use of force. Such 
functions include providing security for our military bases in areas of 
operations and protecting supply convoys. Without a significant 
increase in end strength and resources, the Department would not have 
the capacity to take on all the missions private security contractors 
are able to fill. However, the Department must provide proper guidance 
and supervision when using private security contractors and must ensure 
they do not engage in combat operations. I cannot comment on the use of 
private security contractors by other Federal agencies.
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform such functions risked undermining our defense 
and foreign policy objectives in Iraq and Afghanistan?
    Answer. The use of private security contractors in support of 
contingency operations always requires careful oversight. The 
misapplication of the use of force by private security contractors can 
undermine our strategic objectives. If confirmed, I will ensure DOD has 
established policies and procedures to effectively manage private 
security contractors to prevent actions that would be detrimental to 
our policy objectives.
    Question. Section 846 of the NDAA for Fiscal Year 2013 requires DOD 
to carry out risk assessments and risk mitigation plans whenever it 
relies on contractors to perform critical functions in support of OCOs.
    What steps will you take, if confirmed, to implement the 
requirements of section 846?
    Answer. I believe that contract support is an essential part of the 
total force and will remain so in the future. In many cases contractors 
are absolutely vital. For example transportation command heavily uses 
contractors to move personnel and equipment. If confirmed, I will 
ensure that the DOD policy and operational guidance addresses the 
requirements of section 846 and that proper risk assessments and risk 
mitigation plans are conducted.
    Question. What steps if any would you take, if confirmed, to ensure 
that any private security contractors who may continue to operate in an 
area of combat operations act in a responsible manner, consistent with 
U.S. defense and foreign policy objectives?
    Answer. If confirmed, I will ensure DOD has policies that 
effectively guide the operations of private security contractors when 
they are used, and that we provide proper oversight. We must also 
strive to ensure that all contractors, including private security 
contractors, are appropriately legally accountable for their actions, 
and that private security contractors that operate in an area of combat 
and contingency operations act responsibly.
                  efficiency in department operations
    Question. The Joint Chiefs recently stated that, ``we must be given 
the latitude to enact the cost-saving reforms we need while eliminating 
the weapons and facilities we do not need.''
    In your view, what latitude must be given to the Joint Chiefs to 
enact cost-saving reforms?
    Answer. It is my understanding that the Joint Chiefs supported some 
hard choices that were made in the fiscal year 2013 President's budget 
in order to achieve the savings required to sustain the new defense 
strategy. The Joint Chiefs need Congress to provide them the latitude 
to implement those changes and allow them to execute the new strategy. 
I also understand that it is now a zero sum game. If the Department is 
not able to implement the changes proposed, other offsets must be made, 
while still preserving warfighting capability.
    Question. If confirmed, how would you work with the Joint Chiefs to 
eliminate unneeded weapons?
    Answer. If confirmed, I look forward to the opportunity to sit down 
with the Joint Chiefs and to work together to thoroughly review, 
identify, and eliminate any effort that is outdated or no longer needed 
by the Department.
    Question. Do you support the administration's request for the 
authority to conduct two rounds of Bases Realignments and Closures 
(BRAC) to eliminate unneeded facilities?
    Answer. I understand that the administration's proposal for two 
rounds of BRAC was not accepted by Congress. However, I also think any 
prudent manager has to look at all options when faced with significant 
budget pressures. As with industry, the Department should examine its 
infrastructure and eliminate excess. The BRAC process is not perfect, 
but I believe BRAC is a fair and comprehensive way to right-size the 
Department's footprint, and is the best process identified to date. If 
confirmed, I would have to look at the need for BRAC in the future.
    Question. If so, given the recent report by GAO of the excessive 
costs of the 2005 BRAC round, what would be your priorities in carrying 
out a round of BRAC?
    Answer. It is my understanding that the 2005 BRAC round was an 
anomaly, the only round conducted while the Department was growing. It 
focused on transformation, jointness, and relocating forces from 
overseas. A future BRAC round is more likely to be like the rounds in 
1993 and 1995 where excess capacity was reduced.
                         acquisition workforce
    Question. Over the last 15 years, DOD has reduced the size of its 
acquisition workforce by almost half, without undertaking any 
systematic planning or analysis to ensure that it would have the 
specific skills and competencies needed to meet DOD's current and 
future needs. Since September 11, 2001, moreover, the demands placed on 
that workforce have substantially increased. Section 852 of the NDAA 
for Fiscal Year 2008 established an Acquisition Workforce Development 
Fund to help DOD address shortcomings in its acquisition workforce. 
This requirement was revised and updated by section 803 of the NDAA for 
Fiscal Year 2013.
    Do you agree that the Department would be ``penny-wise and pound 
foolish'' to try to save money by cutting corners on its acquisition 
workforce at the risk or losing control over the hundreds of billions 
of dollars that it spends every year on the acquisition of products and 
services?
    Answer. Yes. It is imperative that DOD act as a good steward of the 
resources entrusted to it by the American people. A properly qualified 
and sized acquisition workforce is central to maintaining this 
stewardship and to ensuring that the Department obtains as much value 
as possible for the money that it spends obtaining products and 
services from contractors.
    Question. Do you believe that the Acquisition Workforce Development 
Fund is needed to ensure that DOD has the right number of employees 
with the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. I understand that the Acquisition Workforce Development 
Fund has provided funds necessary for strengthening the acquisition 
workforce with regard to both its size and skills. I support this goal 
and, if confirmed, will work with Congress to ensure that the Fund is 
used effectively to build the capability of the Department's 
acquisition workforce.
                         human capital planning
    Question. DOD faces a critical shortfall in key areas of its 
civilian workforce, including the management of acquisition programs, 
information technology systems and financial management, and senior DOD 
officials have expressed alarm at the extent of the Department's 
reliance on contractors in these areas. Section 115b of title 10, 
U.S.C., requires the Department to develop a strategic workforce plan 
to shape and improve its civilian employee workforce.
    Would you agree that the Departments human capital, including its 
civilian workforce, is critical to the accomplishment of its national 
security mission?
    Answer. Yes. I agree. The civilian workforce performs key enabling 
functions for the military, such as critical training and preparation 
to ensure readiness, equipment reset and modernization. Civilians also 
provide medical care, family support, and base operating services--all 
vital to supporting our men and women in uniform.
    Question. Do you share the concern expressed by others about the 
extent of the Departments reliance on contractors in critical areas 
such as the management of acquisition programs, information technology 
and financial management?
    Answer. Yes. We must ensure that we have a properly sized, and 
highly capable, civilian workforce that maintains critical skills and 
prevents an overreliance on contracted services. If confirmed, I will 
support the administration's focus on reducing inappropriate or 
excessive reliance on contracted support.
    Question. If confirmed, will you ensure that the Department 
undertakes necessary human capital planning to ensure that its civilian 
workforce is prepared to meet the challenges of the coming decades?
    Answer. Yes. If confirmed, I will ensure departmental human capital 
planning employs strategies for recruitment, development, and retention 
of a mission-ready civilian workforce.
    Question. Section 955 of the NDAA for Fiscal Year 2013 requires a 
5-percent reduction in anticipated funding levels for the civilian 
personnel workforce and the service contractor workforce of DOD, 
subject to certain exclusions.
    What impact do you expect the implementation of section 955 to have 
on the programs and operations of DOD?
    Answer. I do not have enough information at this time to speak to 
potential impact. If confirmed, I will ensure that the Department's 
implementation of section 955, both in the civilian and contracted 
support workforces, is done in a manner that best mitigates risk to 
programs and operations, while maintaining core capabilities and 
support to our warfighters and their families.
    Question. What steps will you take, if confirmed, to ensure that 
section 955 is implemented in a manner that is consistent with the 
requirements of section 129a of title 10, U.S.C., for determining the 
most appropriate and cost-efficient mix of military, civilian and 
service contractor personnel to perform DOD missions?
    Answer. If confirmed, I will ensure implementation of section 955 
recognizes that the sourcing of work among military (both Active and 
Reserve components), civilian, and contracted services must be 
consistent with requirements, funding availability, and applicable 
laws.
    Question. What processes will you put in place, if confirmed, to 
ensure that the Department implements a sound planning process for 
carrying out the requirements of section 955, including the 
implementation of the exclusion authority in section 955(c)?
    Answer. If confirmed, I will review the current processes the 
Department has for workforce determinations, along with existing 
management structures and tools. I do not currently have enough 
information regarding possible specific exclusions, but will ensure 
that the workforces of the Department are sized to perform the 
functions and activities necessary to achieve the missions of the 
Department.
                          test and evaluation
    Question. If confirmed, will you make it a priority to ensure that 
the Department as a whole and each of the Services specifically 
maintains its testing organizations, infrastructure, and budgets at 
levels adequate to address both our current and future acquisition 
needs?
    Answer. Yes. Test and evaluation is a critical element of our 
acquisition system, that providing the measured and objective insight 
into a system's performance that is essential to making sound 
programmatic decisions.
    Question. A natural tension exists between major program objectives 
to reduce cost and schedule and the test and evaluation objective to 
ensure performance meets specifications and requirements. What is your 
assessment of the appropriate balance between the desire to reduce 
acquisition cycle times and the need to perform adequate testing?
    Answer. Test and evaluation provides acquisition decisionmakers 
with accurate and objective information on system performance necessary 
to inform critical acquisition decisions. My view is that we should 
generally not gamble on the performance of a weapons system when a 
reasonable amount of testing will significantly reduce the risk of 
redesign or major changes after production has been started. If 
confirmed, I will closely monitor the balance between reducing 
acquisition cycle time and conducting adequate testing to ensure 
warfighters receive affordable, operationally effective, and suitable 
systems when they need them.
    Question. Under what circumstances, if any, do you believe we 
should procure weapon systems and equipment that has not been 
demonstrated through test and evaluation to be operationally effective, 
suitable, and survivable?
    Answer. I understand that test and evaluation plays a critical role 
in product development and fielding. I believe that there are only a 
limited number of cases where it might be necessary to field a system 
prior to operational testing--for example, to address an urgent gap in 
a critical operational capability in an ongoing or imminent conflict. 
Even when fielding is accelerated to meet an urgent need, applicable 
statutes governing the test process must be complied with. There must 
be some level of testing to ensure basic operational performance and 
the safety of the system and to evaluate the system's capabilities and 
limitations to identify any deficiencies that might need to be 
corrected.
    Question. Congress established the position of Director of 
Operational Test and Evaluation to serve as an independent voice on 
matters relating to operational testing of weapons systems. As 
established, the Director has a unique and direct relationship with 
Congress, consistent with the statutory independence of the office.
    Do you support the continued ability of the Director of Operational 
Test and Evaluation's to speak freely and independently with Congress?
    Answer. Yes.
   funding for science and technology (s&t) investments and workforce
    Question. In his State of the Union speech in 2010, the President 
said that ``maintaining our leadership in science and technology is 
crucial to America's success.'' The DOD budget submissions for fiscal 
years 2012 and 2013 supported continued investment in science and 
technology, despite the significant budget pressure.
    Do you support maintaining growth in the DOD's S&T investments?
    Answer. I understand and appreciate the importance of government 
investment in science and technology in the area of national security. 
Maintaining technological superiority against current and projected 
adversaries underpins our National Security Strategy and it is only 
through this investment that we can sustain this critical edge. I fully 
support the President's commitment to science and technology, and if 
confirmed, I will work to support science and technology investments in 
our defense budget.
    Question. How will you assess whether the science and technology 
investment portfolio is adequate to meet the current and future needs 
of the Department?
    Answer. If confirmed, I anticipate conducting reviews of the 
Department's current science and technology investment strategy, in the 
context of the Department's priorities and capability needs. I also 
acknowledge the necessity of maintaining a strong technology base.
    Question. Well over half of all graduates of U.S. universities with 
advanced degrees in science and technology are non-U.S. citizens. Due 
to a variety of reasons, many return to their home countries where they 
contribute to competing against the United States in technology 
advancement.
    What is your view on steps that the Department should take, if any, 
to ensure that DOD and the defense industrial base are able to recruit 
and retain scientists and engineers from this talent pool?
    Answer. In order to maintain our technology superiority, it is 
essential for the Department to attract the best and brightest minds. 
The President made clear in his recent inaugural address that including 
bright students and engineers from abroad in America's workforce is an 
imperative for our future. If confirmed, I will work within the 
Department and the administration to find ways in which the Department 
could enhance its skilled workforce, to include its scientific and 
engineering segments, by drawing upon a broad talent pool and by 
seeking to recruit and retain the best possible individuals, within the 
construct of national security requirements.
                        defense industrial base
    Question. The latest QDR addressed the need for strengthening the 
defense industrial base. Specifically, it said: ``America's security 
and prosperity are increasingly linked with the health of our 
technology and industrial bases. In order to maintain our strategic 
advantage well into the future, the Department requires a consistent, 
realistic, and long-term strategy for shaping the structure and 
capabilities of the defense technology and industrial bases--a strategy 
that better accounts for the rapid evolution of commercial technology, 
as well as the unique requirements of ongoing conflicts.''
    What is your understanding and assessment of the current state of 
the U.S. defense industry?
    Answer. I understand the Department relies on a broadened technical 
and industrial base that is now far more global, commercial, and 
financially complex than ever before. For the past decade the defense 
industrial base has enjoyed a period of increasing budgets that is now 
at an end. While I think our industrial base is currently strong, I am 
concerned about the impact that further defense budget cuts would have 
on the ability of the base to provide the broad range of products and 
services that the Department and our Nation need. If confirmed, the 
continuing health of the industrial base will be a high priority for 
me.
    Question. Do you support further consolidation of the U.S. defense 
industry?
    Answer. Expansion and consolidation of industries and companies is 
the hallmark of a robust free market economy as it responds to the 
market forces. I expect, and encourage, the free market to act when 
faced with changing demands. However, I believe the Government must 
also be watchful for consolidations that eliminate competition or cause 
market distortions. At the end of the Cold War there was a major 
consolidation at the top tier of defense businesses. My understanding 
is that the Department's leadership have indicated that further 
consolidation at the top tier would not be viewed favorably. I have not 
studied this in detail; however, my initial assessment is that this is 
the correct view. I also believe that each individual case of 
consolidation, acquisition, or merger dealing with our defense firms 
must be examined carefully for what is best for the warfighter and the 
taxpayer, particularly with regard to its impact on competition.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. Foreign investment has generally benefitted the United 
States, including DOD, by providing needed capital and increasing 
access to leading-edge technologies. However, I believe foreign 
investment in the defense sector can also expose critical national 
defense-related technologies to risks, including loss of the 
intellectual property that gives our military personnel the 
technological edge they rely upon. Congress has put provisions in place 
to address critical national security concerns of this nature, 
including the Committee on Foreign Interests in the United States led 
by the Department of the Treasury. If confirmed, I will continue DOD's 
commitment to its oversight function and to ensuring that national 
security concerns are addressed in transactions that involve foreign 
investments in the United States, including investments in the defense 
sector.
    Question. If confirmed, what steps if any do you believe DOD should 
take to most effectively and efficiently manage risk and ensure the 
continued health of the U.S. defense industrial base?
    Answer. If confirmed, I would seek to ensure the sources of 
manufacturing and services in the industrial base that the Department 
relies on are capable of meeting our warfighters' requirements. I will 
ensure that the Department proactively monitors the base to identify 
any risks that need to be addressed. When necessary and as resources 
permit, the Department should be prepared to act to ensure that key 
industrial capabilities are sustained, although, unfortunately, this 
will not be possible in every case. I will also make myself accessible 
to the best source of information on the industry's concerns--industry 
itself. This means working closely and communicating with private 
industry to ensure that, as the Department makes changes necessary to 
adapt to a new set of strategic and budgetary challenges, it does not 
inadvertently jeopardize critical elements of the industrial base. I 
believe the Department must simultaneously be receptive to industry's 
concerns and address their issues as effectively as possible, 
consistent with the Department's priorities and the resources 
available.
                    reset and reconstitution funding
    Question. The Department has a substantial backlog of maintenance 
availabilities due to the high tempo and demand of more than a decade 
of combat operations. Senior DOD officials have testified that they 
will require 2 to 3 years of additional funding to restore readiness 
through reset and reconstitution of their equipment and personnel.
    Do you agree with the assessment that the DOD will need 2 to 3 
years of additional funding for reset and reconstitution?
    Answer. I would need to review the facts behind the specific 
estimate of 2 to 3 years; however, I believe that it will require 
considerable time to repair equipment returning from operations in 
Afghanistan because of the nature of the repairs and difficulty of 
removing the equipment from theater.
    Question. If confirmed, how will you balance maintenance and reset 
requirements with fiscal realities and future risk in developing your 
budget request?
    Answer. The goal of reset and reconstitution is to produce ready 
units with the equipment they need for contingencies or current 
operations. Any further budget cuts must be balanced against this need 
for ready units, and, if confirmed, I will work with the services to 
prioritize the readiness of the units needed to implement the 
President's strategy.
                           operational energy
    Question. Last July, the Assistant Secretary of Defense for 
Operational Energy Plans and Programs published a policy that any 
alternative drop-in replacement fuel procured for DOD-wide use and 
distribution within the Class III (Bulk) supply chain must compete with 
petroleum products and any awards will be based on the ability to meet 
requirements at the best value to the government, including cost.
    What is your view of this policy?
    Answer. I understand this policy to be a positive one. It is 
prudent for the Department to engage in tests and demonstrations that 
confirm defense equipment can operate on a range of fuels; however, as 
the Department allocates its limited resources to ensure it delivers 
necessary warfighting capability, it should only buy large volumes of 
these fuels when they are cost-competitive with petroleum products.
    Question. What is your assessment of section 526 of the Energy 
Independence and Security Act of 2007 and how it should apply to 
military operations of DOD?
    Answer. My understanding is that section 526 has not restricted the 
Department from purchasing whatever fuel it has needed to support 
military operations. Rather, section 526 applies only to contracts that 
are for the express purpose of buying alternative or synthetic fuel. As 
long as mission capability is not restricted, it is helpful to have 
this guidance that new fuels should not be any more polluting than 
fuels produced from conventional petroleum sources.
    Question. Considering the potential of further cuts to Defense 
budgets and the importance of energy security, do you believe DOD 
should jointly invest with other government agencies in the 
construction of a commercial biofuels refinery?
    Answer. I understand the Department is in the early planning stages 
of such a project, undertaken in partnership with the private sector 
and the Departments of Energy and Agriculture, which have the lead 
roles for the Federal Government in promoting biofuels. I have not 
reviewed this project; however, I believe the Nation's long-term energy 
security would benefit from a competitive, domestic renewable fuels 
industry--the Department has a long history of contributing to national 
innovation by innovating to meet the defense mission. As a major 
consumer of liquid fuels, the Department would benefit from that 
industry as well. That said, I am not yet in a position to comment on 
the trade-offs between the value of this investment and the other 
priorities of the Department. Given the Department's funding 
constraints, I would, if confirmed, examine the value of this 
investment carefully before authorizing it to proceed.
    Question. If confirmed, what priorities would you establish for 
Defense investments in energy technologies?
    Answer. My broad priorities for defense energy investments will be 
those that: increase military capabilities, provide more mission 
success, and lower total cost. If confirmed, I will focus on both 
operational effectiveness and efficiency--improving the energy 
performance of aircraft, ships, ground vehicles, and military bases; 
reducing the vulnerability of our fuel supply lines; lowering the load 
our expeditionary forces must carry; and diversifying the energy 
supplies we use.
                       law of the sea convention
    Question. The United Nations Convention on the Law of the Sea is 
pending consideration in the U.S. Senate.
    What is your view on whether or not the United States should join 
the Law of the Sea convention?
    Answer. I strongly support U.S. accession to the Law of the Sea 
Convention. Ratification would allow the United States to take its 
rightful place and enjoy the benefits and protections of this treaty.
    Question. How would being a party to the Law of the Sea convention 
help or hinder the United States' security posture?
    Answer. Becoming a party to the Law of the Sea Convention would 
enhance the U.S. security posture around the globe in several 
significant ways. First and foremost, accession would enable the United 
States to reinforce all of the rights, freedoms, and uses of the sea 
codified in the Convention, including the navigational and over-flight 
rights that are critical to the global mobility of U.S. forces as well 
as the right to submit extended continental shelf claims that would 
help us preserve the rights to potential resources. Additionally, 
accession would help the United States to promote a common rules-based 
approach among other nations to peacefully resolve their territorial 
and maritime disputes, particularly in East Asia. Further, accession 
would add to the Department's credibility in a large number of Asia-
focused multilateral venues where Law of the Sea matters are discussed. 
Lastly, accession would reassure some nations who have expressed 
concerns of the legality of cooperative security efforts that United 
States supports, such as the Proliferation Security Initiative. The 
United States has longstanding interests in freedom of the seas and 
respect for international law, and our accession to the Convention 
would further demonstrate our commitment to those national interests.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Secretary of Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                   u.s.-armenian defense relationship
    1. Senator Levin. Mr. Hagel, what is your assessment of the U.S.-
Armenia defense relationship, and what steps, if any, would you take to 
strengthen that relationship?
    Mr. Hagel. The U.S.-Armenia defense relationship is sound. As with 
all relationships, there is room to grow and areas where we can 
strengthen our cooperation and partnership. That growth will be based 
on shared interests and willingness to cooperate, available resources, 
and capacity to absorb new capabilities and missions.
    If confirmed, I would continue to engage Armenian leaders to 
strengthen existing areas of engagement and identify new areas of 
cooperation that support Armenia's defense reforms, especially its 
peacekeeping brigade, and continue its ability to deploy in coalition 
operations. I would look for the United States to be Armenia's partner 
of choice and help Armenia's defense establishment contribute to 
regional security and stability.

                             nuclear triad
    2. Senator Levin. Mr. Hagel, the Global Zero report provides an 
illustrative example of a future alternative nuclear policy and force 
structure in the 2022 timeframe that would eliminate, through 
negotiated international agreements, our land-based Intercontinental 
Ballistic Missiles (ICBM) as a means to reduce the size of our nuclear 
forces consistent with our obligations under Article VI of the Nuclear 
Nonproliferation Treaty (NPT).
    Do agree with General Kehler, the Commander of U.S. Strategic 
Command and with the 2010 Nuclear Posture Review (NPR) that at the 
present time, the triad of strategic nuclear forces continues to serve 
U.S. national security interests?
    Mr. Hagel. Yes. I agree that the NPR's recommendation remains the 
right one at the present time. I believe that the triad's mix of ICBMs, 
submarine-launched ballistic missiles (SLBMs), and nuclear-capable 
heavy bombers continues to support U.S. national security interests 
under New START limits.

                        malign iranian influence
    3. Senator Levin. Mr. Hagel, Iran supports proxies in Lebanon, 
Yemen, Iraq, Afghanistan, Bahrain, and the Western Hemisphere. In your 
view, what is the impact of Iran's activities in places such as 
Lebanon, Yemen, Iraq, Afghanistan, Bahrain, and the Western Hemisphere?
    Mr. Hagel. Iranian support for proxy groups and terrorist 
activities in the Middle East region and in places around the world 
constitutes a serious threat not only for the stability of our partners 
and allies who are directly impacted by these activities, but also for 
U.S. interests. In short, Iran's activities are malevolent and intended 
to be destabilizing. If confirmed, I intend to focus intently on 
countering Iran's malign influence--including preventing Iran from 
acquiring a nuclear weapon.

    4. Senator Levin. Mr. Hagel, in your view, what role--if any--
should the Department of Defense (DOD) play in countering malign 
Iranian influence in the Middle East?
    Mr. Hagel. In my view, DOD could help to counter Iranian malign 
activities in at least three ways. First, the Department should support 
diplomatic and intelligence efforts to inhibit the activities of 
Iranian proxy and terrorist groups. Second, the Department can leverage 
its presence in the region to deter and, when directed by the 
President, disrupt Iranian malign activities. Third, the Department 
could leverage its extensive security cooperation relationships with 
countries in the Middle East and around the world to partner in 
countering Iranian destabilizing activities.

                                 syria
    5. Senator Levin. Mr. Hagel, the civil war in Syria continues and 
President Assad's commitment to continuing his regime's ongoing 
operations appears unwavering--despite broad international 
condemnation. You have indicated that you share the Obama 
administration's position that Assad must go. In your view, what is the 
most effective way to bring about the end of the Assad regime?
    Mr. Hagel. I believe that a political transition should remain our 
goal. The best way to weaken the Assad regime at this time is through 
political, diplomatic and economic pressure, as well as assisting the 
unarmed opposition. If confirmed, I will support the President's 
ongoing reassessment of the continuously changing conditions on the 
ground in Syria to determine what additional steps may be appropriate.

    6. Senator Levin. Mr. Hagel, what is your assessment of the 
composition and intentions of the Syrian opposition?
    Mr. Hagel. Based on my observations, the opposition is made up 
largely of Syrians wanting to free themselves from a repressive ruler. 
An important exception is the Al Nusrah Front, which the State 
Department has listed as an alias of al Qaeda in Iraq. In my view, the 
United States should continue to encourage the Syrian Opposition 
Council to pursue an approach that isolates extremist elements but is 
inclusive of a broad range of communities inside Syria, and I will 
continue this policy if confirmed.

    7. Senator Levin. Mr. Hagel, are the opposition's motivations 
consistent with U.S. interests in the region?
    Mr. Hagel. In Syria, the opposition is made up of disparate groups 
with varying interests and values. I believe that the Syrian Opposition 
Council's fundamental motivation to end Assad's rule is consistent with 
U.S. interests. U.S. efforts in Syria should aim to partner with those 
groups that share U.S. interests and values, and isolate those groups--
such as the Al Nusrah Front--which do not.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                           armenian genocide
    8. Senator Reed. Mr. Hagel, could you please provide clarification 
of your views on the Armenian genocide?
    Mr. Hagel. As President Obama has emphasized in his April 24th 
Remembrance Day statements, the achievement of a full, frank, and just 
acknowledgement of the facts of what occurred in 1915 is in all of our 
interests. I further concur with the President that the best way to 
advance that goal is for the Armenian and Turkish people to address the 
facts of the past as a part of their efforts to move forward. If 
confirmed, I would continue to strongly support the State Department's 
efforts to work with Armenia and Turkey to normalize relations so they 
can forge relationships that are peaceful, productive, and prosperous.

                           global zero report
    9. Senator Reed. Mr. Hagel, there have been a number of questions 
raised about the Global Zero report on U.S. nuclear policy and force 
structure. I want to make sure we understand the context of that 
report. Is it correct that the report provides an illustrative 
alternative nuclear policy and force structure 10 years in the future--
as an example of how we could continue to reduce our reliance on and 
the number of nuclear forces, in line with our future security 
requirements?
    Mr. Hagel. In the Global Zero report we took a longer-term view of 
what might be possible under different circumstances. The policy and 
force structure it provided was indeed illustrative in nature. The 
study group's analysis was intended to provide a stimulus to national 
debate about how many nuclear weapons may be enough in the future, and 
to illustrate a possible pathway forward.

    10. Senator Reed. Mr. Hagel, is it correct that the illustrative 
reductions envisioned would be made through bilateral and multilateral 
negotiated arms control agreements?
    Mr. Hagel. Yes. I agree with the administration's view, as stated 
in the 2010 NPR, that large disparities in nuclear capabilities on 
either the United States or the Russian side could raise concerns and 
could hinder our pursuit of a stable, long-term U.S.-Russian 
relationship. Therefore, I agree that further reductions should be 
negotiated bilaterally or, if appropriate, multilaterally.

    11. Senator Reed. Mr. Hagel, is it correct that pursuing additional 
reductions to our nuclear forces, beyond the limits established in the 
New Strategic Arms Reduction Treaty (START), is consistent with our 
obligations under Article VI of the NPT, and with the findings and 
conclusions of the April 2010 NPR?
    Mr. Hagel. Yes, I believe that pursuing negotiated reductions below 
New START levels would be consistent with both Article VI of the NPT 
and with the conclusions of the 2010 NPR.

    12. Senator Reed. Mr. Hagel, is it correct that the illustrative 
example of an alternative U.S. nuclear policy and force structure in 
the next decade would be consistent with maintaining a safe, secure, 
and effective nuclear deterrent force?
    Mr. Hagel. Yes.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                          strategic dispersal
    13. Senator Nelson. Mr. Hagel, our Nation must recognize the 
spectrum of threats that confront us daily, and position our assets 
accordingly. Pearl Harbor taught us assets and resources should not be 
concentrated in one place. Dispersing our capital ships is in our best 
national security interest and specifically, dispersing the East Coast 
carrier fleet is a national security priority. One needs to only look 
at the Pacific Fleet to see an excellent example of strategic 
dispersal. The Navy has stationed its Pacific Fleet at four different 
homeports--San Diego, CA; Bremerton, WA; Everett, WA; and Japan, but 
has been slow to accomplish the same thing with our Atlantic Fleet. The 
military decision to disperse the fleet has been studied, and 
restudied. Admiral after admiral, secretary after secretary, have all 
testified keeping a second Atlantic homeport is essential to national 
security. In addition, the 2010 Quadrennial Defense Review (QDR) 
clearly states, ``To mitigate the risk of a terrorist attack, accident, 
or natural disaster, the U.S. Navy will homeport an East Coast carrier 
in Mayport, Florida.''
    Moving a carrier from Norfolk, VA, to Mayport is a cost-effective 
national security objective. As Secretary of Defense, will you maintain 
the DOD's support for moving a carrier from Norfolk to Mayport and, as 
your predecessors have done, will you ensure strategic dispersal is 
again added as an objective in the 2014 QDR?
    Mr. Hagel. I agree that our country faces a spectrum of threats and 
concur that strategic dispersal is a critical element in reducing risk 
and providing strategic flexibility in the event of natural disaster, 
manmade calamity or attack by a foreign nation or terrorists. If 
confirmed, I will look at strategic dispersal as a means of ensuring we 
address strategic risk to our national security objectives. I support 
the Department's efforts to continue to prepare Mayport for carrier 
access.

    14. Senator Nelson. Mr. Hagel, will you support the addition of 
programmed funds in the next President's budget to do so?
    Mr. Hagel. If confirmed, I will ensure future budgets and the 
upcoming QDR evaluate all options to maximize our strategic objectives, 
including strategic dispersal of our carriers on the east coast.

           excess capacity in overseas military installations
    15. Senator Nelson. Mr. Hagel, the value of having a forward 
footprint with our men and women stationed abroad, as well as the 
cooperation it breeds with our allies, is critical to our national 
security. However, I am concerned about the excess capacity of U.S. 
military bases in overseas locations and the drain of our taxpayers 
dollars to maintain these installations. I believe this excess capacity 
and the potential for savings needs to be addressed before we begin to 
close or realign domestic installations. Please share your thoughts on 
this issue.
    Mr. Hagel. A prudent manager has to look at all options when faced 
with significant budget pressure. That includes reviewing options for 
consolidation overseas--particularly in Europe, where the Department is 
reducing force structure and there are clear opportunities to reduce 
supporting infrastructure. The Department should begin this review 
immediately, as specific legislation is not required to consider base 
closures overseas. However, this should not preclude the Department 
from taking simultaneous action to realize infrastructure savings at 
domestic installations. Given the size of the cuts the Department is 
facing, it is unrealistic to expect to achieve all necessary savings by 
looking only at overseas infrastructure.

              moratorium on drilling in the gulf of mexico
    16. Senator Nelson. Mr. Hagel, in 2006, you cosponsored the Gulf of 
Mexico Energy Security Act to restrict leasing in areas of the eastern 
Gulf of Mexico within 125 miles of Florida, including areas in the Gulf 
of Mexico east of the military mission line. Previous Secretaries of 
Defense (Rumsfield, Gates) supported a moratorium on drilling east of 
the military mission line. These training ranges are vital for our 
fifth generation air superiority assets--F-22, F-35--as well as 
providing an area for the critical testing of the weaponry on various 
airframes. As Secretary of Defense, will you maintain this vital 
military test and training area?
    Mr. Hagel. My understanding is that the Department conducted 
analysis in 2010 that identified some parts of this region where 
drilling would not interfere with military activities if the drilling 
activities are significantly constrained--for example, in some regions, 
drilling was deemed compatible if the structures were subsurface. If 
confirmed, I will review this analysis and ensure the Department does 
not put critical military test and training capabilities at risk.

                          afghanistan drawdown
    17. Senator Nelson. Mr. Hagel, President Obama plans to withdraw 
combat forces from Afghanistan by 2014. The U.S. and North Atlantic 
Treaty Organization (NATO) allies are transitioning from fighting to 
training and advising the Afghan security forces, and during his recent 
meeting with President Karzai, President Obama signaled the transition 
to Afghan security forces may be accelerated. What footprint should the 
U.S. and NATO allies have after 2014?
    Mr. Hagel. The President has stated, and I agree, that the scope of 
the international mission in Afghanistan after 2014 should focus on two 
primary objectives: first, to deny safe haven to al Qaeda and its 
affiliates; and second, to train, advise, and assist the Afghan forces 
so they can maintain their own security. This mission shift is 
consistent with what was agreed upon by the United States, NATO allies, 
and ISAF and Afghan partners at the Chicago NATO Summit last year and 
also with our long-term Strategic Partnership Agreement with the Afghan 
Government, signed May 1, 2012. I understand that the President is 
considering a range of options provided by his military commanders and 
national security team. I have not been a part of those discussions, 
but, if confirmed, I will work to ensure that the appropriate resources 
and capabilities are made available for the post-2014 mission.

    18. Senator Nelson. Mr. Hagel, how will the Afghanistan Government 
afford to maintain their military operations?
    Mr. Hagel. At the 2012 NATO Summit in Chicago, the United States, 
NATO allies, and other international partners pledged to provide 
significant financial assistance after 2014 to help maintain the Afghan 
National Security Forces (ANSF). The Afghan Government also pledged to 
provide at least $500 million a year for the ANSF beginning in 2015, 
and to increase this amount over time as its economy grows. The 
international donor community has also pledged its support to 
Afghanistan's continued economic and social development after 2014 
through commitments made at the 2012 Tokyo conference, including 
pledges for $16 billion in civilian aid over 4 years. With this 
support, as Afghanistan's economy grows and its revenues increase, 
Afghanistan will increasingly be able to take responsibility for future 
security costs. Further, it is my understanding that DOD is working 
closely with the Afghan Government to ensure that the force we are 
building and developing is a sustainable one. If confirmed, I will 
continue to work closely with the Afghan Government to ensure that the 
ANSF is sustainable within available resources.

                    camp lejeune water contamination
    19. Senator Nelson. Mr. Hagel, Florida has 16,000 veterans and 
civilians in the Camp Lejeune water contamination registry, second only 
to North Carolina. The Agency for Toxic Substances and Disease Registry 
(ATSDR) is completing studies designed to determine the size and scope 
of water contamination at Camp Lejeune. In January, ATSDR released the 
preliminary results of a drinking water study, which shows the 
following:

        <bullet> Housing complex drinking water was contaminated with 
        dry cleaning solvents from 1957 to 1987 above the current 
        Environmental Protection Agency (EPA) limits.
        <bullet> Separate housing areas were contaminated with organic 
        compounds (from 1 million gallons of spilled gasoline) from 
        1953 to 1985 above the current EPA limits.

    Recent ATSDR findings show drinking water contamination at Camp 
Lejeune from 1953 through 1987. Although the U.S. Navy Bureau of 
Medicine had established Navy drinking water standards during this time 
period, DOD continues to state that no standards existed. As Secretary 
of Defense, will you ensure that these misleading statements from the 
Navy and Marine Corps receive the proper oversight from you?
    Mr. Hagel. The health and well-being of our servicemembers, their 
families, and civilian employees is of the utmost importance to me. If 
confirmed, I will be committed to finding answers to the many questions 
surrounding the historic water quality issue at Camp Lejeune and 
ensuring appropriate oversight of these efforts. Working with the 
leaders of the Navy and Marine Corps, I will engage the proper experts 
and review all the facts pertaining to the Bureau of Medicine 
Instruction to which you refer, ensuring that accurate information is 
provided to all who believe they may have been exposed to contaminated 
water at Camp Lejeune. The Department will continue to understand the 
meaning of ongoing scientific efforts and provide comprehensive 
science-based answers to our servicemembers, their families, and 
civilian employees.
    I applaud Congress' efforts to support families through the passage 
of the Honoring America's Veterans and Caring for Camp Lejeune Families 
Act of 2012 and I pledge to support the Department of Veterans Affairs 
efforts to properly implement the legislation.

                          air force oversight
    20. Senator Nelson. Mr. Hagel, the Air Force recently released two 
major decisions which affected Florida: the Air Force Materiel Command 
(AFMC) reorganization and the KC-46 basing selection. We believe there 
is room for improvement in regards to the Air Force routing and seeking 
validation through the Office of the Secretary of Defense (OSD) on 
these very important decisions.
    In regards to the KC-46 basing decision and the analysis to 
determine future requirements, the level of engagement and coordination 
between the Air Force and Combatant Commands (COCOM), as well as OSD 
validation of the Air Force decision, requires additional attention.
    On December 18, 2012, in section 2814 of the National Defense 
Authorization Act (NDAA) for Fiscal Year 2013, the Air Force was 
directed to submit a report and include the efficiencies and 
effectiveness associated with the AFMC reorganization, as well as the 
extent to which the proposed changes were coordinated with OSD.
    Critical decisions of a strategic nature need to be properly 
coordinated with the COCOMs. As Secretary of Defense, how will you 
direct your staff to ensure the Air Force seeks OSD validation prior to 
releasing decisions such as these?
    Mr. Hagel. It is my understanding that each Service has a 
decisionmaking methodology and process for managing its operations, 
organizational structure, and basing decisions. OSD oversees these 
efforts, which involve key stakeholders including the COCOM. For 
reorganization decisions such as these, I think it is important that 
the Secretary of Defense allow the Military Departments the latitude to 
make proposals to streamline management functions while also preserving 
core capabilities. OSD oversight of this process ensures that affected 
stakeholders have the opportunity to provide their perspective on the 
implications of proposed changes. If confirmed, I will ensure my staff 
and the combatant commands continue to appropriately examine the Air 
Force approach to basing decisions.

                          taiwan relations act
    21. Senator Nelson. Mr. Hagel, the 1979 Taiwan Relations Act and 
the Six Assurances of 1982 have contributed to the peace and stability 
of the Asia-Pacific region for the past 3 decades. With the military 
balance--including air superiority--gradually shifting in China's 
favor, what are your plans to implement the security commitment the 
United States has for Taiwan under this framework?
    Mr. Hagel. I agree that the Taiwan Relations Act has contributed to 
peace and stability in the region for over 30 years. In my view, the 
increasing complexity and sophistication of the military threat to 
Taiwan from China means that Taiwan must devote greater attention to 
asymmetric concepts and innovative technologies to maximize Taiwan's 
strengths and advantages. If confirmed, I would work closely with 
Congress, throughout DOD, and with our interagency partners to ensure 
the continued effective implementation of all of the relevant 
provisions of the Taiwan Relations Act.

    22. Senator Nelson. Mr. Hagel, as Taiwan is likely to retire some 
of its older fighter aircraft in the next 5 to 10 years, do you believe 
that sales of advanced aircraft are a next step in this commitment?
    Mr. Hagel. If confirmed, I would work closely with Congress, 
throughout DOD and with our interagency partners to ensure the 
continued effective implementation of all of the relevant provisions of 
the Taiwan Relations Act. If confirmed, I will look at what specific 
capabilities will help Taiwan meet its self-defense needs in light of 
the security situation in the Taiwan Strait and the evolving military 
capabilities on the mainland.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                           contracting reform
    23. Senator McCaskill. Mr. Hagel, in 2011, in its final report to 
Congress, the Commission on Wartime Contracting found that as much as 
$60 billion, roughly $12 million ``every day for the past 10 years,'' 
was lost to waste or fraud through contracts in Iraq and Afghanistan. 
In addition to the financial costs, the Commission found that poor 
planning, management, and oversight of contracts damaged the United 
States' strategic and diplomatic objectives overseas. Building on the 
Commission's recommendations, last year I offered legislation, along 
with our former Senate colleague, Jim Webb, to reform wartime 
contracting practices within DOD, the Department of State, and the U.S. 
Agency for International Development (USAID). Major provisions of this 
legislation were signed into law as part of the NDAA for Fiscal Year 
2013.
    Section 843 of the new law requires the Secretary to establish a 
chain of authority and responsibility for policy, planning, and 
execution of operational contract support. Do I have your commitment to 
direct the needed resources to look at our overreliance on contractors 
and our loss of core capabilities in certain areas and to report back 
to me on the responsibilities you lay out after this review?
    Mr. Hagel. Yes. If confirmed, you have my commitment to look at the 
Department's reliance on the use of contractors in contingency 
operations and to assess what core capabilities should be retained in 
DOD.

    24. Senator McCaskill. Mr. Hagel, section 846 requires the 
Secretary of Defense to conduct a risk assessment of certain types of 
contracting, including not only private security contractors, but also 
contracts for training, intelligence, and a host of other problem 
areas. You have your pick of poster child case studies in Iraq and 
Afghanistan to know this is a problem. DOD does not operate in a vacuum 
in wartime. Do I have your commitment to work with the State Department 
and USAID, who are also subject to this provision, and to conduct this 
assessment based not just on whether you are legally entitled to 
contract something out, but on whether it makes sense in the long term, 
for both our military mission and our own future capabilities to do so?
    Mr. Hagel. Yes. If confirmed, I will work with State Department and 
USAID in conducting the required risk assessment of contingency 
contracting from not just a legal perspective but also from the 
perspective of our long-term capability needs.

                                 f/a-18
    25. Senator McCaskill. Mr. Hagel, the F/A-18 program has been a 
model acquisition program, and continues to deliver Super Hornets on-
time and on-schedule at less than half the cost of an F-35. The fact 
is, the Super Hornet is an aircraft that has performed superbly in 
virtually every combat operation and delivers nearly all of the 
capability.
    As the F-35 program continues to slip, we are nearing the end of 
the production line for the Super Hornet, which is currently scheduled 
to shut down in 2014. I am concerned that the United States could be 
left with a gap in the defense industrial bases' ability to produce 
strike fighters and eliminates DOD's ability to rely on the F/A-18 
lines to manage future F-35 cost, performance, and schedule risks. As 
Secretary of Defense, how would you address this gap?
    Mr. Hagel. If confirmed, I will assess the strike fighter 
capability mix, the progress of the F-35, and the state of the F/A-18 
production line to determine if a gap exists and evaluate the options 
to address it for feasibility and affordability.

    26. Senator McCaskill. Mr. Hagel, international sales of the F/A-18 
could help mitigate the risk of the closing of domestic strike fighter 
production line that can address our own strike fighter shortfall. Will 
you ensure that DOD actively supports international sales of the F/A-
18?
    Mr. Hagel. If confirmed, I will ensure the Department actively 
supports foreign military sales of U.S. defense products including the 
F-18.

                             sexual assault
    27. Senator McCaskill. Mr. Hagel, DOD under Secretary Panetta's 
leadership has implemented a number of initiatives to try to curb 
sexual assaults in the military--a problem he has stated could be six 
times greater than reported--and we have seen both military and 
civilian leaders acknowledge that sexual assault is a problem that 
affects the recruitment, retention, and readiness of our armed forces. 
This committee has taken up the issue of sexual violence in the 
military and has implemented some reforms in the NDAA, most recently in 
fiscal year 2013.
    We have seen some promising programs developed by the Services, as 
well. You mentioned in one of your responses to the advance policy 
questions that you look forward to hearing about the outcome of the Air 
Force's pilot program that assigns an attorney to each victim of sexual 
assault who requests one to represent them through the process. I have 
been impressed by the training for special investigators going on at 
the Army's Military Police School at Fort Leonard Wood in Missouri. 
This course has been recognized as the ``gold standard'' for special 
investigator training, which both DOD and Congress have encouraged the 
other Services to follow.
    As a former prosecutor, I understand how critically important the 
investigation process is to the outcome of sexual assault cases. The 
investigation process is also key for victims, as victims may feel more 
comfortable coming forward to report their cases if they have 
confidence that the military justice system is working and that 
perpetrators will be brought to justice.
    While I recognize each of the Military Services have a unique 
history and culture, that should not be an excuse for refusing to adopt 
best practices to combat a problem they all share. Will you push the 
Services to adopt best practices in their efforts to combat sexual 
assault?
    Mr. Hagel. It is my understanding that the Services are sharing 
information about their processes and working to adopt these best 
practices across the Services. If confirmed, I will work to continue 
and expand this important effort.

    28. Senator McCaskill. Mr. Hagel, will you review whether the 
Services have done enough, in your view, to address the problem of 
sexual assault within the military?
    Mr. Hagel. Sexual assault is a horrible crime and cannot be 
tolerated, ignored, or condoned in DOD. If confirmed, I will be fully 
committed to combating this crime and determined in reducing the 
instance of sexual assault, with a goal of eliminating it from the 
military.
    I know that the over the past year, the Department has developed 
and implemented several new policies and procedures to prevent the 
crime of sexual assault, support victims, strengthen investigations, 
and hold offenders appropriately accountable. I also know that these 
efforts are not enough.
    The Department must continue its multi-discplinary approach in 
combatting sexual assault. Prevention efforts are important, so that 
the crimes do not happen in the first place. These efforts must ensure 
that every servicemember, from top to bottom in our military ranks, 
knows that dignity and respect are core values we must all live by.
    But accountability is key and people who violate the standards of 
acceptable behavior must be held appropriately accountable for their 
actions. I believe a positive first step was elevating the initial 
disposition of the most serious sexual assault cases to the level of 
colonel or Navy captain, or higher. Military commanders are essential 
to making sexual assault prevention and response efforts successful.
    I look forward to learning more about the Department's ongoing 
program to develop Special Victims Capabilities across each of the 
Services, a program legislated in the NDAA for Fiscal Year 2013, and 
which is under development in the Department in the form of special 
training and standardized procedures for investigators, prosecutors, 
paralegals, and victim witness liaisons. This program's objective is to 
enhance the quality of investigations and accountability in sexual 
assault cases and I fully support it.
    I also look forward to hearing more about the impact of the Air 
Force's pilot program, implemented in January, which assigns an 
attorney to a victim of sexual assault who requests one to represent 
them. I believe this could be a very good way to improve 
accountability. It will improve victim confidence and increase the 
number of victims who are willing to report; thereby increasing the 
number of cases that can be investigated and the number of cases in 
which offenders can be held appropriately accountable.
    If confirmed, I will be resolute in advancing the Department's 
prevention, investigation, accountability, victim support and 
assessment programs in order that we address the problem of sexual 
assault in a persistent, comprehensive, and effective manner.
                                 ______
                                 
               Questions Submitted by Senator Mark Udall
                      alternative energy programs
    29. Senator Udall. Mr. Hagel, do you believe that the U.S. 
military's dependence on foreign oil represents a national security 
risk?
    Mr. Hagel. I am concerned about the Nation's dependence on foreign 
oil. At the same time, U.S. military forces need to be able to buy fuel 
wherever they operate. I support efforts to reduce the military's 
energy needs and diversify supplies in order to increase military 
effectiveness.

    30. Senator Udall. Mr. Hagel, do you support the continuation of 
DOD's energy conservation and alternative energy development programs?
    Mr. Hagel. I support the continuation of energy initiatives that 
improve the effectiveness and efficiency of the Defense mission. The 
Department has a long history of harnessing innovation to meet defense 
challenges in ways that can benefit the civilian economy, and there is 
potential for such gains in this case.

    31. Senator Udall. Mr. Hagel, do you believe those programs 
represent a strategic investment that will benefit U.S. national 
security and increase our military capabilities?
    Mr. Hagel. Yes. Energy efficiency and alternative energy programs 
are critical for cost savings, operational effectiveness, and our 
strategic national security goals. The Department has a long history of 
harnessing innovation to meet defense challenges in ways that can 
benefit the civilian economy, and there is potential for such gains in 
this case.

                                 africa
    32. Senator Udall. Mr. Hagel, what specific actions should be taken 
by DOD to address the wave of extremism in the Sahel region of Africa?
    Mr. Hagel. I believe the United States should continue to support 
France's strong actions to counter al Qaeda in the Lands of the Islamic 
Maghreb's effort to establish a safe haven in Mali, including by 
providing DOD assistance. The Departments of Defense and State should 
also continue contributing to the robust international support to the 
African-led International Support Mission in Mali (AFISMA). AFISMA will 
help to degrade the threat posed by al Qaeda and allied terrorist 
groups and put Mali on a path to stability.
    Elsewhere in the Sahel region, the United States should continue to 
work with regional partners to strengthen their security capacities and 
create the conditions to apply region-wide pressure on extremist 
groups.

    33. Senator Udall. Mr. Hagel, what methods would you prescribe to 
prevent additional countries and national governments in North Africa 
from falling to extremists?
    Mr. Hagel. Extremists in North Africa clearly pose a significant 
threat to regional stability. If confirmed, I will work with the 
Secretary of State, other interagency counterparts, international 
partners and allies, and countries across the region to build the 
capacity of their militaries to counter these threats and to assist 
North African governments in improving governance and security for 
their populations. This includes preventing the expansion of terrorist 
networks and then degrading and, ultimately, defeating terrorist 
groups.

                                pakistan
    34. Senator Udall. Mr. Hagel, do you believe that there are steps 
that the United States should take to further pressure Pakistan to 
withdraw their tacit support for terrorist groups like Lashkar-e-Taiba 
and the Haqqani Network in order to enhance the prospects for a stable 
peace in the region?
    Mr. Hagel. The ability of militant and terrorist networks to 
operate on Pakistani soil poses a threat to the United States, 
Pakistan, and other countries in South Asia. Therefore, the United 
States should continue to work to ensure that Pakistan meets its 
commitments, including supporting a durable settlement in Afghanistan, 
pressuring the Haqqani Network, and not allowing Pakistani territory to 
be used to launch terrorist attacks on other countries. Our approach 
should apply diplomatic pressure where needed and ensure our security 
assistance, which is an important tool, is not unconditional but 
conditions advance U.S. strategic interests.

                          military healthcare
    35. Senator Udall. Mr. Hagel, as Secretary of Defense, would you 
continue to prioritize funding for military suicide prevention 
programs, as well as for improved treatment for physical and 
psychological injuries?
    Mr. Hagel. I am deeply concerned about the significant rise in 
military suicides and am firmly committed to prioritizing funding for 
the full range of the Department's mental and physical health programs. 
These programs include: suicide prevention programs, such as the Army's 
Shoulder to Shoulder and Navy's Combat and Operational Stress Control 
resilience and fitness programs; peer-to-peer programs such as the 
Vets4Warriors which focuses on our Reserve members; transition and 
family support programs, such as Recovery Care Coordination; and 
quality of life programs, such as those offered through Military 
OneSource. In addition, I will continue ongoing collaboration with the 
Department of Veterans Affairs, with continued emphasis on the Military 
Crisis Line, to ensure that our members receive support as they 
transition back to their civilian lives. Finally, and most importantly, 
I agree with Secretary Panetta that there is a significant leadership 
role and responsibility for preventing suicides and building the 
resilience of the force. If confirmed, I will continue to look for 
opportunities to improve our military and civilian leaders' ability to 
understand the needs of distressed servicemembers and reduce stigma so 
that they can be properly guided to the support they need.

                     role of the reserve component
    36. Senator Udall. Mr. Hagel, would you agree that, over the last 
decade, the National Guard and Reserves have demonstrated their value 
to the military mission in support of domestic disaster relief, combat 
operations, and in a variety of other roles at home and abroad?
    Mr. Hagel. Yes. The National Guard and Reserves have played an 
integral role during the past decade, mobilizing in unprecedented 
numbers for the wars in Afghanistan. They have also been critical to 
Homeland defense and security, highlighted by their heroic efforts 
during Hurricane Sandy.

    37. Senator Udall. Mr. Hagel, please discuss your views of the 
Reserve and National Guard and the role they should play in the coming 
years.
    Mr. Hagel. The Reserve components have served with distinction over 
more than a decade of war and continue to be a relevant and cost effect 
part of the Total Force. In a time of declining budgets and complex 
contingencies, I believe that the Department will continue to call on 
both Active and Reserve components to accomplish the domestic and 
overseas requirements of the new strategy. I understand that the 
Department is still in the process of finding the proper Active 
component/Reserve component mix that will most effectively accomplish 
our new strategy in a constrained fiscal environment. If confirmed, I 
will work with our military leaders on this important issue.

                            russian policies
    38. Senator Udall. Mr. Hagel, since Vladimir Putin was reelected as 
Russia's president, the Russian Federation has sent mixed signals for 
what its defense and foreign policies will be going forward. The 
creation of a so-called ``Eurasian Union''--which would consist of 
Russia and other former Soviet republics--was a key component of 
President Putin's campaign platform, and is viewed by some as an 
attempt by Russia to ``re-Sovietize'' the region, which would pressure 
U.S. allies in the region. Former Senator John Kerry (nominated to be 
Secretary of State) has reaffirmed the U.S. Government's unwavering 
support for the independence of these countries and their right to 
choose ``political, military, [and] economic'' alliances ``free from 
coercion''. One such U.S. strategic partner, Azerbaijan, recently 
allowed a lease with Russia for the Gabala Radar station--the last 
Russian installation on Azerbaijan's soil--to expire due to a 
disagreement over the cost of the lease, continuing a trend of moving 
away from Moscow's orbit. As Secretary of Defense, what will be your 
policy to ensure that the independence of U.S. strategic partners in 
the region is preserved?
    Mr. Hagel. If confirmed, I will support continuing engagement with 
the leaders of the defense and security institutions of former Soviet 
Republics to advance reform and defense modernization goals, to 
contribute to regional stability and security, and to advance our 
shared security interests. It is possible for countries in the region 
to preserve their independence while also having a constructive, 
positive relationship with the United States, Russia, and other 
countries. As sovereign independent nations these countries must pursue 
the bilateral and multinational relationships that they assess are in 
their own national interests, but I would work to ensure the United 
States is the partner of choice. Working with the Department of State 
and other U.S. agencies, I would, if confirmed, continue to support 
partners in the region building their government institutions, 
practices, and capabilities to enable them to exercise the full measure 
of responsibilities and opportunities of independent, sovereign 
countries.

                      cooperative threat reduction
    39. Senator Udall. Mr. Hagel, do you support the work conducted 
under the Cooperative Threat Reduction (CTR) programs which seek to 
eliminate threats, demilitarize systems, and to secure stocks of 
existing weapons of mass destruction (WMD)?
    Mr. Hagel. Yes. I believe that the Cooperative Threat Reduction 
Program is a vital mechanism for partnering with other nations to 
counter the threat posed by weapons of mass destruction. The program is 
now global and focused on core U.S. priorities, including nuclear 
security, countering biological threats, and destroying chemical 
weapons. If confirmed, I will continue to support the work of this 
vital program.

    40. Senator Udall. Mr. Hagel, how would you characterize your own 
views on the importance and priorities of the CTR program, originally 
undertaken in the former Soviet Union, and more recently expanding into 
other territories including Africa and the Middle East?
    Mr. Hagel. In the immediate aftermath of the Cold War, I believe 
that it made good sense for the CTR program to focus on reducing the 
threat posed by the former Soviet Union's nuclear arsenal. Based on 
information currently available to me, I believe that the program's 
recent expansion into new geographic areas, including Africa, the 
Middle East, and Southeast Asia also makes good sense, as does a new 
focus on biological threats. In my view, CTR remains a very important 
tool in reducing risks to the United States.

                         nuclear modernization
    41. Senator Udall. Mr. Hagel, do you support the restoration of 
funding appropriations to maintain the U.S. nuclear triad, and for key 
nuclear infrastructure programs such as the Chemistry and Metallurgy 
Research Replacement Nuclear Facility in the fiscal year 2013 
appropriations bills?
    Mr. Hagel. I support the President's commitment to a safe, secure, 
and effective nuclear deterrent as long as nuclear weapons exist. I 
believe that maintaining the triad and modernizing our nuclear forces 
and the nuclear weapons infrastructure are national security 
priorities. If confirmed, I will give sustained attention to these 
issues.
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan
                    sexual assault/domestic violence
    42. Senator Hagan. Mr. Hagel, as you and I discussed earlier this 
week, the number of sexual assault and domestic violence cases reported 
in the military every year is appalling. Studies show that there are 
3,200 reported cases every year, but even more astonishing is that the 
actual number is estimated at 19,000 cases. This means that somewhere 
around 80 percent of all cases go unreported.
    A Government Accountability Office (GAO) report concluded that most 
victims stay silent because of ``the belief that nothing would be done; 
fear of ostracism, harassment, or ridicule . . . or labeled trouble 
makers.'' That same report goes on to say that some victims go silent 
because they do the math: only 8 percent of cases that are investigated 
end in prosecution, compared with 40 percent for civilians arrested for 
sex crimes.
    This year's NDAA included provisions to combat this problem, 
including enhanced education, training, and awareness for our troops 
and the leadership. While this is a positive step, just having a zero-
tolerance policy and getting out the message is not always enough.
    If confirmed, do you pledge to ensure the NDAA sexual assault 
provisions are implemented as rapidly as possible?
    Mr. Hagel. Yes.

    43. Senator Hagan. Mr. Hagel, how do you intend to further prevent 
sexual assault and domestic violence?
    Mr. Hagel. Sexual assault is a horrible crime and it cannot be 
tolerated, ignored, or condoned in DOD. If confirmed, I will be fully 
committed to combating this crime and determined in reducing sexual 
assault, with a goal of eliminating it from the military.
    I know that the over the past year, the Department has developed 
and implemented several new policies and procedures to prevent the 
crime of sexual assault, support victims, strengthen investigations, 
and hold offenders appropriately accountable. I also know that these 
efforts are not enough.
    The Department must continue its multi-disciplinary approach in 
combating sexual assault. Prevention efforts are important, so that the 
crimes do not happen in the first place. These efforts must ensure that 
every servicemember, from top to bottom in our military ranks, knows 
that dignity and respect are core values we must all live by.

    44. Senator Hagan. Mr. Hagel, how will you approach fostering an 
environment where victims feel safe to come forward to report these 
crimes?
    Mr. Hagel. I believe a first step in this area is an Air Force 
pilot program, implemented in January, which assigns an attorney to a 
victim of sexual assault who requests one to represent them. I believe 
this could be a very good way to increase accountability. It will 
improve victim confidence, increase the number of victims who are 
willing to report; thereby increasing the number of cases that can be 
investigated and the number of cases in which offenders can be held 
appropriately accountable. If confirmed, I will continue to study the 
impact of this pilot program and look for other initiatives that may be 
helpful.

    45. Senator Hagan. Mr. Hagel, how do intend to increase 
accountability at all levels--not only of the perpetrators, but also of 
their leadership?
    Mr. Hagel. Accountability is key and people who violate the 
standards of acceptable behavior must be held appropriately accountable 
for their actions. I applaud Secretary Panetta's decision last year to 
elevate the initial disposition of the most serious sexual assault 
cases to the level of colonel or Navy captain, or higher. Military 
commanders are essential to making sexual assault prevention and 
response efforts successful.
    I also look forward to learning more about the Department's ongoing 
program to develop Special Victims Capabilities across each of the 
Services, a program legislated in the NDAA for Fiscal Year 2013, and 
which is under development in the Department in the form of special 
training and standardized procedures for investigators, prosecutors, 
paralegals, and victim witness liaisons. This program's objective is to 
enhance the quality of investigations and accountability in sexual 
assault cases. I fully support it.

                    camp lejeune water contamination
    46. Senator Hagan. Mr. Hagel, historic and recent public statements 
made by the leadership of the U.S. Marine Corps cite that at the time 
of the drinking water contamination period aboard Camp Lejeune, there 
were no regulatory standards governing the organic chemicals which 
fouled the water aboard the base. Yet, recent Department of the Navy 
and Marine Corps documents uncovered by former marines and their 
families affected by the contamination indicate there was indeed a 
Naval regulatory standard in place for total organics in potable water 
as early as 1963 (NAVMED P-5010-5 and BUMED 6240.3B and beginning in 
1972, version C).
    As Secretary of Defense, what steps would you take to ensure the 
Department of the Navy and Marine Corps are truthfully conveying 
pertinent facts, disseminating important developments to the Camp 
Lejeune community, and allowing the community a voice in the matter to 
ensure total transparency regarding this issue?
    Mr. Hagel. The health and well-being of our servicemembers, their 
families, and civilian employees is of the utmost importance to me. If 
I am confirmed, I will be committed to finding answers to the many 
questions surrounding the historic water quality issue at Camp Lejeune, 
including ensuring appropriate oversight of these efforts. I will work 
with the leadership of the Navy and Marine Corps to engage the proper 
experts and review all the facts pertaining to the Bureau of Medicine 
Instruction to which you refer, ensuring that accurate information is 
provided to all who believe they may have been exposed to contaminated 
water at Camp Lejeune. The Department will continue to understand the 
meaning of ongoing scientific efforts and provide comprehensive 
science-based answers to our servicemembers, their families, and 
civilian employees.
    I applaud Congress' efforts to support families through the passage 
of the Honoring America's Veterans and Caring for Camp Lejeune Families 
Act of 2012 and I pledge to aggressively support the Department of 
Veterans Affairs efforts to properly implement the legislation.

                                biofuels
    47. Senator Hagan. Mr. Hagel, in August 2011, the Departments of 
the Navy, Agriculture, and Energy signed a Memorandum of Understanding 
(MOU) to invest $510 million to spur production of advanced aviation 
and marine biofuels under the Defense Production Act. The joint-MOU, 
where each Department contributes $170 million, requires substantial 
cost-sharing from private industry of at least a one-to-one match.
    Critics of the MOU claim the Department of Energy (DOE) should be 
the only Government agency involved in the promotion of advanced 
biofuels. While DOE must certainly play an important role, I believe 
the Navy and the Department of Agriculture also need to be involved. 
From my perspective, leveraging the unique capabilities of each 
agency--in partnership with the private sector--exemplifies the type of 
innovative approach needed to solve our country's most vexing 
challenges.
    As the end-user of this fuel, do you believe there are significant 
benefits of having the Navy participate in this initiative?
    Mr. Hagel. I have not reviewed all the details of this initiative; 
however, all of the Military Services require fuel to operate, so all, 
including the Navy, have an interest in promoting military energy 
security and have the potential to benefit from such an initiative. I 
agree that it is important for the Department to leverage the expertise 
of civilian agencies that have the lead or an interest in this area. 
The Defense Department has a long history of harnessing innovation to 
meet defense challenges in ways that can benefit the civilian economy, 
and there is potential for such gains in this case.

    48. Senator Hagan. Mr. Hagel, would you agree that leveraging the 
unique capabilities of these three agencies enhances the prospects for 
programmatic success?
    Mr. Hagel. See answer to Question #47.

    49. Senator Hagan. Mr. Hagel, in this budgetary environment, I 
understand that difficult decisions need to be made about funding 
defense programs. However, as the largest single consumer of fuel in 
the world, DOD uses approximately 120 million barrels of oil each year 
and spent over $17 billion in fiscal year 2011 on fuel alone. This 
dependency on a single source of energy jeopardized our military's 
readiness. When the price of oil goes up $1, it costs the Navy an 
additional $30 million and the entire DOD over $100 million. In 2011, 
the Navy was forced to pay an additional $500 million because the price 
of fuel was higher than budgeted. Costs overruns could force the 
military to curtail training and less urgent operations--resulting in 
increased risk to future missions.
    Do you believe that developing a commercially viable biofuels 
industry will help DOD diversify its fuel sources, reduce the risk of 
energy volatility, and ultimately produce cost savings for the Navy?
    Mr. Hagel. I believe it is in the long-term energy security 
interests of the United States to promote a commercially viable 
biofuels industry. A commercially competitive industry could help to 
reduce market volatility and reduce risk. If confirmed, I will look 
into the role biofuels could play in increasing military capabilities 
and lowering costs and risks for the Navy and other military 
departments.

                                lithium
    50. Senator Hagan. Mr. Hagel, DOD has indicated that sustaining 
domestic capacity of lithium metals is critical because of the 
military's reliance on rechargeable lithium batteries in the field and 
the importance of lithium to developing next generation batteries. Do 
you believe it is in our national security interest to secure domestic 
production of lithium metal and reduce our reliance on imports from 
China?
    Mr. Hagel. My understanding is the Department is examining a range 
of options to ensure adequate and sustainable supply of lithium metal. 
If confirmed, I am committed to ensuring the Department has access to 
lithium metals, using all authorities available.

    51. Senator Hagan. Mr. Hagel, will you consider using authorities 
under the Defense Product Act to accomplish this goal?
    Mr. Hagel. See answer to Question #50.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III
                          downsizing the force
    52. Senator Manchin. Mr. Hagel, if you are confirmed as Secretary 
of Defense, you will oversee the military's largest personnel 
downsizing in a generation. This, I believe, is one of the most 
important tasks facing the next Secretary, especially with the high 
rate of veterans' unemployment. I am very concerned about telling 
servicemembers, many who deployed to Iraq and Afghanistan multiple 
times, their services are no longer needed as the force downsizes. If 
confirmed, what approach would you bring to overseeing this massive 
personnel drawdown?
    Mr. Hagel. The Department must take care of its people, not only 
while they are serving, but it is an obligation that continues through 
the transition to civilian life. We, as a Nation, owe it to them for 
the sacrifices they have made.
    It is my understanding that the Department has worked with the 
Department of Veterans Affairs, Department of Labor, the Small Business 
Administration, and the Department of Education to redesign the 
Transition Assistance Program (TAP). The redesigned TAP curriculum 
contains a Department of Labor sponsored employment workshop, a 
Veterans Affairs benefits briefing and registrations, a financial 
planning workshop and Service-specific training to equip members with 
the tools needed to successfully pursue their post military goals. The 
Department is also working with other agencies to meet the mandates of 
the VOW to Hire Heroes Act.
    If confirmed, I will look at the services available for our men and 
women, both those that continue to serve and those that transition to 
civilian life.

                               dod audit
    53. Senator Manchin. Mr. Hagel, in your advance policy questions 
you provided the following statement regarding the Pentagon's audit 
objectives: ``Yes. I support the effort and will maintain the 
Department's commitment to producing audit-ready financial statements 
by the congressional deadline of September 2017, with an audit 
beginning by the end of calendar year 2017.'' Will you do everything in 
your power to speed this process up?
    Mr. Hagel. Improving the Department's financial management 
capability is an important priority and, if confirmed, I will ensure 
that senior leaders throughout the Department are focused on this goal 
and hold them accountable. While I will push for this effort to be 
completed as soon as possible and by the dates we have set, the 
Department must also be careful not to take manual or ``heroic'' steps 
to achieve this goal in an inefficient manner. I understand Congress 
has, in fact, directed DOD not to follow such an approach.

                           military families
    54. Senator Manchin. Mr. Hagel, DOD will face difficult budgetary 
choices in the future. Priorities will need to be evaluated and some 
programs will face cancellation or reduction. After a decade of war it 
is not only our soldiers that feel the stress, but so do their 
families. How will you help ensure programs for military families 
continue to be a high priority for DOD?
    Mr. Hagel. I share the concern of our senior military leaders that 
fiscal constraints will affect the very necessary programs needed to 
support the families of our servicemembers. If confirmed, I will seek 
to prioritize funding for family readiness programs to ensure that the 
quality of support for our military families is not negatively affected 
by budget reductions while also identifying the most effective programs 
and best practices. If confirmed, I will work through a newly formed 
Task Force on Common Services for military families to seek to protect 
funding for family readiness programs.

                        u.s. role in the pacific
    55. Senator Manchin. Mr. Hagel, there has been an increase in 
tension in the East China Sea around the Senkaku Islands in recent 
months. In your view, what is the role of the United States in 
territorial disputes in Asia?
    Mr. Hagel. I support the President's policy that while the United 
States does not take sides over competing claims, the United States 
opposes any and all forms of coercion to resolve disputes or apply 
pressure (including economic measures). In addition, I believe that the 
United States should continue to make clear that we will meet our 
Treaty commitments.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                             sequestration
    56. Senator Shaheen. Mr. Hagel, in your responses to the advance 
policy questions, you support Secretary Panetta's assessment of the 
damaging effects that sequestration would have on the entire DOD and 
defense industries. Please describe the negative impact to military 
families should Congress fail to reach an agreement.
    Mr. Hagel. Sequestration will reduce the operations and maintenance 
(O&M) funding that is used to train our troops, to run our bases, and 
to run many of our family support programs. While the Department is 
still finalizing its assessment of specific impacts, I believe the 
these cuts in O&M funding will likely force cuts in our civilian 
workforce that will lead to cuts in the hours, services, and staffing 
available at clinics, family support centers, libraries, and athletic 
facilities. Furthermore, I believe the Department has already concluded 
sequestration will force significant cuts in the maintenance of DOD 
facilities, which directly affects quality of life.
    If confirmed I will make it a priority to minimize the impact of 
sequestration on our military families. Sustaining family support 
programs in these days of extreme budget uncertainties will be 
challenging, but it is an integral part of our military readiness. If 
confirmed, I will seek to minimize funding cuts to family support 
programs to the greatest extent possible.

    57. Senator Shaheen. Mr. Hagel, please describe the negative impact 
to our defense industrial base should Congress fail to reach an 
agreement.
    Mr. Hagel. Sequestration would significantly curtail important 
industrial base capabilities and skills which, if lost, would be 
difficult, expensive, and perhaps even impossible to replace. My 
understanding is that the Department has worked diligently to preserve 
those truly unique industrial base assets. Sequestration would render 
these careful efforts largely ineffectual. I believe the Department is 
still assessing the impact on specific weapons programs and service 
support contracts, and that those impacts will vary from case to case, 
but each such program will be cut by about 10 percent.

                           women's healthcare
    58. Senator Shaheen. Mr. Hagel, there have been a number of 
positive steps taken over the last year with respect to eliminating 
inequalities facing women in our military. One of which was our effort 
to bring female servicemember reproductive health care in line with 
Federal standards, to ensure women in uniform have the same access to 
care as their civilian counterparts. I was encouraged that we were able 
to change this policy during last year's NDAA, and I look forward to 
its full implementation.
    It is my understanding that the Surgeon's Generals of each of the 
Services will issue guidance to their Departments to ensure that 
doctors and nurses are aware of new medical options available and are 
prepared to advise their patients. I also understand that the Sexual 
Assault Prevention and Response Office will issue guidance to victim 
advocates to ensure they are aware of this policy change and are 
prepared to brief victims on the full range of medical options now 
available. Do you commit to implementing this measure, which is now 
law, to ensure that our service women have the same health care as the 
civilians they protect?
    Mr. Hagel. If confirmed, I am committed to ensuring that our female 
servicemembers are afforded the same reproductive health care options 
as women in the civilian population. I will work with the Services to 
guarantee that all medical personnel are aware of the new options and 
that every victim has all resources available. I assure you that I will 
fully implement all laws protecting women servicemembers' reproductive 
rights. My goal is to ensure the health care provided to our 
servicemembers remains world class and contemporary.

          lesbian/bisexual/gay/transgendered military families
    59. Senator Shaheen. Mr. Hagel, as the implementation of the repeal 
of Don't Ask, Don't Tell policy continues, concerns have been raised 
about remaining inequalities faced by Lesbian/Bisexual/Gay/
Transgendered (LBGT) military families. We have a case in New Hampshire 
which demonstrates the pain and injustice inflicted by the Defense of 
Marriage Act (DOMA). Charlie Morgan is a chief warrant officer in the 
Army National Guard. She served her country in the Active Army, the 
Reserve and the Guard, and most recently, she was deployed to Kuwait. 
Unfortunately, she has been diagnosed with inoperable breast cancer and 
due to DOMA, her spouse, Karen, is denied any survivor benefits, and 
she is prohibited from health coverage worth well in excess of $10,000 
a year. She also cannot get a base pass that would let her escort her 
4-year-old daughter to medical appointments on base. Though I recognize 
that certain restrictions on monetary benefits apply to LGBT families 
under DOMA, will you commit to ensuring that LGBT families are fully 
incorporated into military communities and social programs?
    Mr. Hagel. Yes. As I have said, I know firsthand the profound 
sacrifice our servicemembers and their families make. We must always 
take care of our people. That is why, if confirmed as Secretary of 
Defense, I will do everything possible to the extent permissible under 
current law to provide equal benefits to the families of all our 
servicemembers, as members of our military community.

                               submarines
    60. Senator Shaheen. Mr. Hagel, recent operations in Libya, 
Somalia, and around the globe highlight the value submarines continue 
to bring to the fight in both our conventional and covert operations. 
Can you discuss the importance of our undersea warfare capability, 
particularly with respect to the capabilities the Virginia-class 
submarines bring to the Navy?
    Mr. Hagel. U.S. undersea warfare capabilities are unparalleled in 
the world and give us an asymmetric advantage against our adversaries 
in both peace and war. Our U.S. Navy dominates the undersea domain, 
using attack and guided missile submarines for a variety of clandestine 
missions, including intelligence, surveillance, and reconnaissance, 
indications and warning, and special operations forces insertion and 
recovery. Submarines operate covertly in places that overt units 
cannot, providing unequaled capability for intelligence collection.
    Ballistic missile submarines, the most survivable leg of the 
nuclear triad, are vital to the national mission of strategic 
deterrence, and under New START will comprise an increasing percentage 
of our operationally deployed weapons.
    To maintain our undersea dominance, we must continue a vigorous 
submarine building program. The Virginia-class program is the Navy's 
most successful shipbuilding program, consistently providing submarines 
ahead of schedule and under budget.

                     pacific versus atlantic focus
    61. Senator Shaheen. Mr. Hagel, obviously, our strategic shift 
towards the Asia-Pacific region prioritizes assets in that area of 
responsibility (AOR). However, as recent operations in Libya and Mali, 
as well as challenges throughout the Mediterranean, the Middle East, 
and North Africa demonstrate, we must maintain the capability to 
quickly respond to contingencies on the Atlantic side as well. 
Considering the uncertain and complex world of threats we face, how 
important is it to maintain flexibility and balance to ensure that our 
shift does not leave us vulnerable on the Atlantic side of the country?
    Mr. Hagel. I agree that our military forces need to remain 
flexible, agile, and balanced in order to be ready for challenges 
around the world. I think that DOD recognizes the complexity and 
uncertainty of the global security environment and avoids predicting 
with certainty how the future will unfold. As outlined in the January 
2012 Defense Strategic Guidance, the Department is developing an 
adaptable and technologically-advanced Joint Force capable of 
responding to a wide range of contingencies. Regardless of where U.S. 
military forces may be positioned or stationed, one of the key 
advantages of our military is that we can bring to bear effective 
capabilities virtually anywhere throughout the world to address the 
threats countering our interests.

                                 israel
    62. Senator Shaheen. Mr. Hagel, the Senate Armed Services Committee 
(SASC) has been a strong proponent of U.S.-Israeli cooperation on 
missile defense and has provided significant funding for cooperative 
efforts, like the Arrow system, David's Sling, and the Iron Dome. Last 
year, the SASC provided $211 million to help Israel procure additional 
Iron Dome defense systems in the NDAA for Fiscal Year 2013. What is 
your view on the importance of these cooperative programs?
    Mr. Hagel. I strongly support U.S.-Israel cooperative efforts on 
missile defense, including Iron Dome. U.S. cooperation with Israel, 
enabled by congressional support, has led to the development of one of 
the most comprehensive missile defense architectures in the world. Each 
of the Israeli programs--Iron Dome, David's Sling, and Arrow--fill a 
critical requirement in a multi-layered architecture that has been 
designed to protect the Israeli populace from existing and emerging 
threats.

    63. Senator Shaheen. Mr. Hagel, will you commit to continuing these 
programs?
    Mr. Hagel. Yes, if confirmed, I will seek to continue these 
programs and to expand them as appropriate. As we saw in Operation 
Pillar of Defense in Gaza, these programs are a lifesaving investment 
in Israel's future and our defense relationship.

                      servicemember reintegration
    64. Senator Shaheen. Mr. Hagel, you noted in your response to the 
advance policy questions that you are committed to working with State 
and local governments as well as private and community organizations to 
support reintegration of returning servicemembers, particularly those 
with combat injuries. Several States have established successful 
programs designed to augment reintegration services provided through 
DOD's Yellow Ribbon Reintegration Program (YRRP). New Hampshire's 
Deployment Cycle Support program is an example of these efforts that 
combine State and local as well as public and private funds to provide 
comprehensive assistance to military families. What steps can DOD take 
to better support these State and local efforts to ensure their 
continued success?
    Mr. Hagel. I am very familiar with the congressionally-mandated 
YRRP established in the NDAA for Fiscal Year 2008 that assists National 
Guard and Reserve members as they transition between their military and 
civilian roles, providing servicemembers and their families with access 
to programs, services, resources, and referrals during all deployment 
phases.
    I am also aware that there are several State programs that go 
beyond YRRP with strong networks of community-based service providers, 
and partnerships with State and local governments that are key in 
ensuring resources are readily available to servicemembers and their 
families when they need them.
    I understand that one of the initiatives of the YRRP Center for 
Excellence includes evaluating State-based outreach and reintegration 
efforts to identify best practices in order to share those initiatives 
nationwide. Additionally, the Center for Excellence is evaluating and 
substantiating various Service curricula at YRRP events and post-event 
survey data to disseminate best practices. They are also creating on-
line toolkits for use across all components at YRRP events.
    If confirmed, I will review the Department's support to YRRP 
efforts within the Department and across the various State programs to 
ensure we are maximizing our combined efforts and sharing best 
practices as much as possible.

                        defense industrial base
    65. Senator Shaheen. Mr. Hagel, it is critical that DOD and the 
Services have an overarching direction and comprehensive policy for 
maintaining the manufacturing and engineering capabilities that are 
necessary to ensure we have production lines for building ships, combat 
vehicles, and even engines and transmissions for our current and future 
weapons systems. What is your view of the status and health of the 
defense-related industrial base, and can you give your assurances that 
you will work to ensure these capabilities remain viable and 
competitive in the near- and long-term?
    Mr. Hagel. I am committed to a healthy industrial base, and I am 
concerned that changes in the defense market may impact that base. If 
confirmed, I will work to ensure critical defense industrial base 
capabilities remain viable and competitive in the near- and long-term. 
The Department is dependent on a strong industrial base for the wide 
range of products and services needed to support the missions of our 
forces, and to provide for the innovation and technical excellence that 
provides technological superiority.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                              afghanistan
    66. Senator Gillibrand. Mr. Hagel, I was a cosponsor of the Afghan 
Women and Girls Security Promotion Act in the 112th Congress, both the 
standalone version and the bill in the form of an amendment that was 
included in the final version of the NDAA. I would like to know what 
actions you will take to follow the amendment's directive and execute 
as robust a report as possible on the efforts made by the U.S. 
Government to ensure the security of Afghan women and girls during and 
after Afghanistan's transition process?
    Mr. Hagel. Promoting and protecting the security of Afghan women 
and girls has been a priority of both the Defense and State Departments 
in Afghanistan. If confirmed, I will continue to work with the State 
Department to monitor progress throughout the transition and provide 
Congress with information that is responsive to the NDAA.

    67. Senator Gillibrand. Mr. Hagel, the Special Inspector General 
for Afghanistan Reconstruction (SIGAR) has reported that some of the $1 
billion in fuel purchases from Russia and Turkmenistan were blended 
with Iranian oil. What measures are going to be put into place to 
ensure that we are not violating our own sanctions on Iran?
    Mr. Hagel. I believe the SIGAR reported that there may be Iranian 
oil in some products we have purchased. I understand that our contracts 
for fuel in Afghanistan, including contracts for fuel purchased in 
Russia and Turkmenistan, require certifications that Iran was not a 
source of the oil. If I am confirmed, I will ensure that we have 
appropriate processes in place to preclude the purchase of fuel that 
may have come from Iran and to enforce our own sanctions against Iran.

                         women in the military
    68. Senator Gillibrand. Mr. Hagel, Secretary Panetta recently 
lifted the ban on women serving in direct combat roles. I applaud that 
decision and am happy to hear that you plan to continue its 
implementation, if confirmed. The military you served in with such 
distinction in many ways looks very different than the military of 
today. Today, women make up nearly 15 percent of the Armed Forces. More 
than 283,000 women have been deployed in Iraq and Afghanistan. More 
than 800 women have been wounded in Iraq and Afghanistan, and more than 
140 women have died. Two women have earned Silver Star medals. Why do 
we need to wait until 2016 for the Services to complete their 
assessment when so many women are already serving on the front lines?
    Mr. Hagel. As I've said, I strongly support Secretary Panetta's 
decision to lift the ban on women serving in combat roles. While there 
are women serving on the front lines, the rescission of the Direct 
Combat Rule and Assignment Policy requires the Services to review the 
requirements and standards for all combat positions. It is my 
understanding that this process takes, at a minimum, 2 years in order 
to review tasks, develop testing, and validate the tests which will 
result in gender neutral standards.

    69. Senator Gillibrand. Mr. Hagel, I understand and appreciate that 
you support the announcement made last week regarding the policy of 
opening combat roles to women. I wholeheartedly support this overdue 
change in policy as women already have been fighting and dying on the 
frontline. I just as strongly believe that military standards should 
not be lowered for women seeking these roles and we will see 
extraordinary women meeting those standards and strengthening our 
national security. I am concerned, however, about the potential for the 
goal posts being moved back, or arbitrary standards set, which would in 
effect keep combat roles closed to qualified women. How will you ensure 
this policy is implemented as intended and as rapidly as feasible?
    Mr. Hagel. I believe the military and civilian leadership are 
committed to implementing the rescission as quickly as possible and, if 
confirmed, I assure I will work to have it implemented expeditiously. I 
will ensure that all standards reflect legitimate requirements for 
combat roles. In short, if a female soldier has the full skills and 
capabilities required to perform in a position, I will make sure she 
does.

    70. Senator Gillibrand. Mr. Hagel, we know that women are already 
participating, unofficially, with many combat units and special 
operations units. With the lifting of the combat exclusion ban, what 
will happen to the women already serving with ground combat troops?
    Mr. Hagel. It's my understanding that women who served or are 
serving in units under an exception to the ground combat exclusion do 
so in an official capacity. It's also my understanding that women 
currently serving with ground combat troops will continue to serve with 
ground combat troops.

    71. Senator Gillibrand. Mr. Hagel, will their combat service now be 
recognized as such?
    Mr. Hagel. It's my understanding that women's service in combat is 
already being recognized. If confirmed, I expect we will continue to 
recognize their service and achievements based on the contributions 
they make toward mission accomplishment.

    72. Senator Gillibrand. Mr. Hagel, will they be eligible to compete 
now for combat arms leadership positions?
    Mr. Hagel. On January 24, 2013, Secretary Panetta rescinded the 
1994 Direct Ground Combat Definition and Assignment Rule and directed 
the integration of women into previously closed positions by January 1, 
2016. If confirmed, I will continue implementation of that new policy. 
Within this policy I expect women will be able to compete for 
leadership positions where they are qualified and meet the standards.

    73. Senator Gillibrand. Mr. Hagel, sexual assault is an appalling 
problem in our military that continues to threaten the military's core 
value of protecting all members of the Armed Forces. It has been 
speculated that lifting the direct ground combat exclusion for women 
will help mitigate the sexual assault problems in our military by 
eliminating gender classes in the military. Do you agree with this 
theory, and if so, will you use it as leverage to ensure combat roles 
are opened to women swiftly and equally across the Services?
    Mr. Hagel. I have not had sufficient time to study this particular 
theory. As I have previously stated, sexual assault has no place in our 
military or anywhere in our society and I will work tirelessly to 
resolve that issue holding all commanders fully accountable.

    74. Senator Gillibrand. Mr. Hagel, lifting the combat exclusion ban 
has raised the question of whether women should be required to register 
for the Selective Service. Selective Service requirements are 
determined by law; would you support Congress' decision to include 
women in the mandatory registry for Selective Service at age 18?
    Mr. Hagel. This is an issue that concerns DOD, although it is not 
responsible for administering the Selective Service System. If 
confirmed, I will look forward to participating in any interagency 
discussion of the merits of extending selective service registration to 
women.

    75. Senator Gillibrand. Mr. Hagel, we have been told many times 
that commanders will be held responsible if there is a climate in their 
units that contributes to sexual assault or harassment. But I am 
concerned that measurable mechanisms for holding leaders accountable in 
addressing sexual violence issues have not been devised. DOD needs to 
develop a process for more directly holding leaders accountable for 
enforcing DOD's sexual abuse and harassment policies. The Defense 
Advisory Committee on Women in the Services even recommends that 
effectiveness in combating sexual harassment and assault should be a 
part of individual performance evaluations of all servicemembers and 
not just leaders. Accountability seems to be lacking in many respects. 
Case in point: Right now there appears to be no one person assigned to 
oversee the implementation of Secretary Panetta's directives on sexual 
assault prevention and response.
    When it comes to issues of sexual violence in the military, what do 
you believe is the best mechanism for evaluating leaders?
    Mr. Hagel. The men and women who are serving their country face 
many challenges both on and off the battlefield. They should never have 
to fear the threat of sexual assault from a fellow soldier or superior.
    Accountability is always the most important tool for leader 
evaluation. One of the most effective mechanisms across all Services is 
the command climate assessment. This tool provides timely feedback as a 
modality to determine if leaders have reinforced a culture of mutual 
respect and created an atmosphere that reinforces that sexual assault 
has no place within our ranks. The results from the assessment are key 
indicators whether leaders are taking responsibility for good order, 
morale, and discipline.

    76. Senator Gillibrand. Mr. Hagel, do you believe that 
effectiveness in combating sexual harassment and assault should be part 
of individual performance evaluations for commanders?
    Mr. Hagel. Accountability is always the most important tool for 
leader evaluation. One of the most effective mechanisms across all 
Services is the command climate assessment. This tool provides timely 
feedback as a modality to determine if leaders have reinforced a 
culture of mutual respect and created an atmosphere that reinforces 
that sexual assault has no place within our ranks. The results from the 
assessment are key indicators whether leaders are taking responsibility 
for good order, morale, and discipline.

    77. Senator Gillibrand. Mr. Hagel, in your opinion, what 
consequences should follow if a commander is found to be unresponsive 
or ineffective on this issue?
    Mr. Hagel. I will hold all commanders responsible for this issue.
    In order to successfully address this issue, I will continue to 
advance the positive steps taken by Secretary Panetta to change the 
policies and the culture that has discouraged victims from speaking out 
and trusting that there are resources in place to support and protect 
them.
    Among the initiatives that have already been taken by this 
administration, I feel strongly about efforts to raise the awareness of 
this issue and elevate its importance to the Department, including 
elevating disposition authority for the most serious cases, requiring 
commanders to conduct annual organizational climate assessments, and 
enhancing training programs for sexual assault prevention.
    If confirmed, I will work closely with the Joint Chiefs of Staff to 
ensure that all of our commanders are responsive and establish 
appropriate repercussions for those commanders who do not fully support 
this goal.

                            women's security
    78. Senator Gillibrand. Mr. Hagel, on December 19, 2011, the United 
States released its new National Action Plan (NAP) on U.N. Security 
Council Resolution 1325 on Women Peace and Security (WPS). The plan 
released by the administration is the first ever U.S. national action 
plan and Executive Order to implement these goals to establish women as 
influential and active agents in the prevention and resolution of 
conflicts. On August 10, 2012, the United States released the first-
ever U.S. Strategy to Prevent and Respond to Gender-based Violence 
Globally, and President Obama signed an accompanying Executive Order 
directing all relevant agencies to implement the Strategy. The Strategy 
underscores the U.S. Government's commitment to preventing and 
responding to gender-based violence.
    We know that all too often violence against women is used as a tool 
of war, yet U.N. peacekeepers and regional forces are under-trained and 
under-equipped in addressing violence against women. What actions will 
you take to implement this Executive Order?
    Mr. Hagel. I understand that, in the first year of implementation, 
the Department made noteworthy progress on the NAP for WPS objectives, 
both internally and with a range of foreign defense partners. First and 
foremost was Secretary Panetta's decision to rescind the restriction on 
women in direct combat, a decision I applaud. Externally, in bilateral 
and multilateral engagements, I am told combatant commands and our 
Regional Centers are focused on building the capacity of partner 
militaries to promote and strengthen gender equality.
    I understand that the Department is developing a DOD Instruction to 
institutionalize the NAP's priorities. If confirmed, I would continue 
this progress in implementing the NAP and ensure the Department 
continues to lead by example on WPS issues.

    79. Senator Gillibrand. Mr. Hagel, are there assets, such as excess 
defense articles, that the United States can contribute to peacekeeping 
forces, such as those in the Congo, in order to specifically help women 
facing significant and constant threats of sexual violence?
    Mr. Hagel. If confirmed, I plan to fully support the Department's 
efforts to implement the U.S. Strategy to Prevent and Respond to 
Gender-based Violence Globally and associated Executive Order. In this 
context, training of peacekeepers is critical and I believe it is 
important that DOD peacekeeping training continue to include human 
rights training and targeted instruction on prevention of and response 
to sexual and gender based violence. If confirmed, I will also continue 
to leverage Department authority to provide excess defense articles to 
equip peacekeeping contingents, where appropriate.

                                 cyber
    80. Senator Gillibrand. Mr. Hagel, in your responses to the advance 
policy questions, you have said that ``recruiting, training, and 
retaining military and civilian personnel needed for cyber operations 
will be a challenge''. One noted expert recently told the press that of 
the 10,000 necessary top cyber personnel, DOD has or can recruit only 
2,000.
    Why don't we begin an aggressive program of recruiting National 
Guard and Reserve cyber experts--a cyber corps--which would leverage 
the training and hiring of the private tech sector? The additional 
benefit from using the Guard is their ability to operate both in the 
military and Homeland defense space so that they can address the 
spectrum of threats to our national interests.
    Mr. Hagel. I believe that the National Guard and Reserve are a 
tremendous resource of talent and of surge capacity for DOD, and these 
skilled personnel can contribute greatly to the cyber mission. We are 
already using Guard and Reserve personnel in this mission area. It will 
not only be critical to recruit the right talent, but we must take a 
strategic approach to leveraging our National Guard and Reserve Forces 
as part of our overall structure. If confirmed, I will ensure that we 
appropriately draw upon a broad pool of our Nation's cyber experts in 
support of our critical cyber mission.

    81. Senator Gillibrand. Mr. Hagel, I also understand that the 
pipeline of cyber personnel has to start in early education in order to 
interest and educate the right number of future cyber warriors. Why 
don't we make Science, Technology, Engineering, and Mathematics (STEM) 
aptitude and interest a significant focus of our Reserve Officers' 
Training Corps (ROTC) selection?
    Mr. Hagel. The Reserve Officers' Training Corps (ROTC) is vital to 
training the exceptional officers upon which our military relies, 
including in cyber skill sets. I believe that we should explore many 
approaches to build the critical technical skills DOD needs, and this 
should include exploring STEM related incentives in our ROTC program.

                         new york installations
    82. Senator Gillibrand. Mr. Hagel, I represent New York, home to 
our Nation's number one terrorist target. In the NDAA for Fiscal Year 
2013, I worked to ensure the second WMD civil support teams for both 
New York and Florida were authorized, and that funds have been 
appropriated. Both of these units are fully trained and ready to deploy 
in the event of a terrorist attack, yet DOD and the National Guard 
Bureau are trying to disestablish our second teams. While I recognize 
the need for cost savings, these teams cost so little and yet provide 
so much to our country. Given the importance of these teams to our 
national security, do I have your commitment to follow clear 
congressional direction, which has authorized and fully funded these 
teams?
    Mr. Hagel. I agree that WMD civil support teams are vital to our 
national security. I am not familiar with the funding for these teams, 
but I will look into this matter if confirmed.

    83. Senator Gillibrand. Mr. Hagel, I understand that the Army must 
cut its forces, but it is taking only two of its eight Brigade Combat 
Teams (BCT) slated for reduction out of Europe, and the rest from 
Continental United States (CONUS). Will you consider further cuts 
outside the CONUS (OCONUS), perhaps using rotational units?
    Mr. Hagel. The additional BCT reductions must be made consistent 
with our global strategy and treaty obligations. The three remaining 
BCTs not stationed in the United States, one in Korea and two in 
Europe, provide vital forward presence, partnership opportunities, 
deterrence, and rapid response. I will certainly work with my staff and 
the Secretary of the Army and Chief of Staff of the Army to see what 
other options may be feasible and affordable while still providing the 
requisite reassurance to our allies.

    84. Senator Gillibrand. Mr. Hagel, what metrics and methodology 
will DOD use in approaching reductions in overseas personnel and 
infrastructure, while concurrently taking actions which reduce force 
structure in the United States?
    Mr. Hagel. The Department will seek to balance posture reductions 
in a way that aligns with our national strategic interests. As we 
consider options, we will balance our strategic and operational 
priorities against the need to reduce costs.

    85. Senator Gillibrand. Mr. Hagel, the Army has reiterated the 
importance of rotary wing aviation in Iraq and Afghanistan as a 
critical asset to reducing the amount of casualties during ground 
convoys because of improvised explosive devices (IED). As the Army 
downsizes, do you see the number of Combat Aviation Brigades decreasing 
as well?
    Mr. Hagel. As it downsizes, the Army must maintain the proper 
balance amongst all of its capabilities--Ground Combat capabilities, 
Combat Support capabilities, Sustainment and Logistics capabilities, 
and Institutional capabilities. Army Aviation must be part of this 
balance. I don't know to what extent Aviation will be affected, but I 
will review with the Secretary of the Army and the Chief of Staff of 
the Army their plans for the Army drawdown and ensure that I and my 
staff continue to be comfortable with the Army's plan.

    86. Senator Gillibrand. Mr. Hagel, we've seen from Air Force 2013 
Force Structure proposal, a disconcerting strategy which shifts more 
flying missions and iron to the Active component, while placing the Air 
Guard with fewer assets. The Guard getting unmanned missions is a 
welcome development, but the reduced manning requirements and the 
ability of the Air Guard to provide support to Governors with fewer 
numbers of critical assets, such as C-130s, remains a concern. It may 
also place a chill on Air Guard recruiting given the decreasing 
opportunities for pilots. What is your strategy to maintain a strong 
balance in flying missions and assets for the Air Guard over the next 4 
years and beyond?
    Mr. Hagel. Since its inception, the Air Force has relied on the 
Total Force--made up of the Active, Reserve, and Air Guard components. 
Over the past 2 decades, the Air Force has become a more integrated 
force, both operationally and organizationally, as all three 
components--Active, Reserve, and Air Guard--have trained, deployed, and 
conducted the full range of missions together. I understand the Air 
Force continually reevaluates the mix between Active and Reserve 
components through an institutionalized process that includes 
representatives from all three components. If confirmed, I intend to 
work with Air Force leadership to understand and evaluate this process 
myself.

    87. Senator Gillibrand. Mr. Hagel, how will you assure that the Air 
National Guard has a greater voice in decisionmaking, rather than 
simply being handed decisions from the Air Force?
    Mr. Hagel. I believe the work currently under way between the 
Department and the Council of Governors to develop a mutually agreed 
upon consultative process will ensure that the concerns of States are 
taken into consideration in future National Guard force structure, 
basing and budgeting decisions. I intend to continue with this effort 
and am committed to working closely with the Council of Governors.

    88. Senator Gillibrand. Mr. Hagel, with the downsizing of the 
military, and last year's request from the administration for Base 
Closure and Realignment (BRAC) authorization, I anticipate that we will 
be discussing a new round of domestic base closings in this year's 
posture hearings. How will the metrics rolled out by the Air Force and 
Army respectively, in the last year and a half, inform any BRAC 
decisions?
    Mr. Hagel. It is my understanding that BRAC recommendations must 
result from a process that meets the requirements of the specific BRAC 
legislation. Therefore, metrics developed outside the BRAC statutory 
process can be used only if authorized in the legislation.

    89. Senator Gillibrand. Mr. Hagel, you have said that you view 
cyber threats as one of the top security threats to the United States. 
Yet last year the Air Force cut its cyber research budget, and in the 
coming year, there is a plan to make the research budget pay for the 
operating costs at the Air Force Research Lab in Rome, New York. I am 
very concerned that such steps point to a hollowing out of our cyber 
preparedness, rather than taking the threat seriously. I hope to work 
with you to reverse this trend. Even in a budget scarce environment, 
cyber research pays tremendous dividends. Can I count on your support 
for increased cybersecurity research?
    Mr. Hagel. In today's complex global environment, cyber threats 
pose an increasingly serious challenge to national security. DOD 
organizations, including the Air Force Research Lab, provide for the 
development of vital capabilities needed for both today's warfighter 
and for the future strategic environment. If confirmed, I will work 
with Congress and the Services to ensure that DOD continues to assess 
and invest in critical cybersecurity research activities.

          coordination with the department of veterans affairs
    90. Senator Gillibrand. Mr. Hagel, I am concerned about the 
transition our warriors face as they leave the DOD and enter the 
Department of Veterans Affairs (VA). While there have been improvements 
in the last few years, I am concerned there is still a gap. I am 
especially concerned about the issues our female warriors face as they 
make this transition, especially those who have been sexually assaulted 
while serving. I want to ensure they are getting the information, care, 
and assistance they need while not being revictimized by the system.
    If confirmed, what are your plans for increasing coordination with 
the VA to ensure our troops, especially women, are getting the 
important transition information and assistance they need so that no 
one falls through the cracks?
    Mr. Hagel. I am committed to ensuring every servicemember receives 
the training, education, and credentials he or she needs to 
successfully transition to the civilian workforce. I believe we must 
embed servicemembers' preparation for transition throughout their 
military lifecycle. I understand that the Department has redesigned the 
Transition Assistance Program (TAP) to ensure all servicemembers are 
``career ready'' upon separation. The redesigned TAP complies with the 
VOW to Hire Heroes Act of 2011 that mandates all servicemembers 
separating from title 10 Active Duty (including reservists and 
guardsmen) participate in the program to ensure they are better 
prepared when leaving the military for civilian life.
    If confirmed, I will engage Department of Veterans Affairs 
Secretary Eric Shinseki in a specific dialogue on the unique issues 
facing the transition of our female servicemembers. I will also 
continue the practice of holding regular Secretarial-level meetings and 
will closely monitor the progress of the many important joint 
initiatives between the two Departments.

                            directed energy
    91. Senator Gillibrand. Mr. Hagel, the Center for Strategic and 
Budgetary Assessments recommended last year a much greater investment 
into directed energy weapons. While DOD has already spent billions of 
dollars over several decades on science and technology efforts related 
to directed energy, several recent demonstrations by the Navy using 
solid state lasers on surface ships indicate that we may be reaching 
the point where as a Nation we can begin to realize a return on the 
substantial investment and transition this capability from science and 
technology to development as a weapon system. I understand that 
shipboard directed energy weapons could provide an affordable solution 
to significant capability challenges associated with sustaining our 
forward presence in strategically critical areas such as the South 
China Seas, the Sea of Japan, and the Straits of Hormuz. What is your 
view of current DOD efforts to weaponize directed energy technologies?
    Mr. Hagel. I understand that the Department has embarked on a 
deliberate path to develop the technologies to weaponize Directed 
Energy. If confirmed, I will continue to push for directed energy and 
other emerging technologies through robust research and development to 
continuously improve the capabilities we will field for our forces.

    92. Senator Gillibrand. Mr. Hagel, should the Navy formally 
consider initiating a development program of record for high energy 
solid state lasers to improve the affordability and capability of our 
surface ships?
    Mr. Hagel. I understand that the Navy has and will continue to 
assess the solid state laser research and development efforts to 
determine transition opportunities given the remaining technical risk, 
costs and capability limitations that must be addressed prior to 
establishing a program of record.

    93. Senator Gillibrand. Mr. Hagel, should such a program, if 
undertaken, include contributions from willing and technically capable 
allies?
    Mr. Hagel. Yes.

                               asia pivot
    94. Senator Gillibrand. Mr. Hagel, the President had announced an 
Asia pivot, and between North Korea's missile threats and China's 
increased aggressiveness with respect to its neighbors, we have a 
number of challenges to react to. But at a time of declining budgets, 
how would you balance this pivot against the continuing concerns in the 
Middle East and the growing threat in Africa?
    Mr. Hagel. As described in the 2012 Defense Strategic Guidance, the 
Department is rebalancing toward the Asia-Pacific while maintaining 
focus on the Middle-East. I think that the significant U.S. military 
presence and activities in Asia are a clear demonstration of the 
enduring U.S. commitment to the region and to addressing current and 
emerging challenges in the Asia-Pacific. Moreover, if confirmed as 
Secretary, I would take every step to maintain the ability of America 
to conduct successful combat operations in more than one region at a 
time, ensuring that we have the ability to meet threats around the 
world, as in the Middle East and North Africa, when they arise. Our 
global posture, engagement with allies and partners, and investment in 
flexible defense architectures for high-demand capabilities, such as 
ballistic missile defense, are of great importance.

    95. Senator Gillibrand. Mr. Hagel, how would this impact decisions 
over weapon systems and force structure?
    Mr. Hagel. While rebalancing, it will be important for the 
Department to protect new capabilities and investments to respond to 
the changing character of warfare; to preserve lessons, capabilities, 
and expertise built over the past 10 years; and to maintain a 
technological edge to meet future challenges.

                      cutting forces/hollow force
    96. Senator Gillibrand. Mr. Hagel, you have stated that a hollow 
force is one that has been rendered incapable of performing the mission 
that we expect it to conduct. With a hollow force, units do not have 
the resources, personnel, equipment, and training necessary to make 
them capable or ready to execute the defense strategies that secure our 
country. As the military draws down after a decade of war, what 
strategic approach would you implement to ensure we retain the 
appropriate balance of training, readiness, and modernization to 
prevent the force from becoming hollow?
    Mr. Hagel. I understand that last year the President approved the 
Department's Strategic Guidance which provided priorities as well as 
force sizing direction. This was designed to ensure the Department 
could meet the missions we foresee and respond to the unexpected in a 
balanced way. However, any dramatic changes to the resources of the 
Department, such as with sequestration, would force military and 
civilian leaders to reevaluate that strategy.

    97. Senator Gillibrand. Mr. Hagel, as conventional warfare becomes 
more technology-based, how do you believe that we should retain talent, 
especially in the fields of information technology and cyber warfare 
when the technology sector is able to provide pay and benefits that far 
exceed what the Government can offer?
    Mr. Hagel. Maintaining personnel critical technical skills will be 
an increasingly important challenge for DOD. Although the private 
sector may be able to offer better pay and benefits in some cases, my 
experience with DOD personnel has shown me again and again not only 
their talent but their commitment to their national security mission. 
In order to recruit and retain these talented individuals in 
information technology and cyberspace, I will use every tool I have 
afforded by OPM. In addition to many opportunities that the private 
sector cannot offer, DOD can focus on new ways to recruit, train, and 
retain talented cyber professionals. These include scholarships, 
partnerships, ensuring that technical people stay in mission essential 
technical jobs, and working creatively with the National Guard and 
Reserve components. If confirmed, I will work with DOD and 
congressional leaders to address this challenge.
                                 ______
                                 
   Question Submitted by Senators Kirsten E. Gillibrand and Richard 
                               Blumenthal
                                 autism
    98. Senator Gillibrand and Senator Blumenthal. Mr. Hagel, we have 
worked very hard this year to pass a bipartisan, bicameral provision 
funding autism services under TRICARE. Unfortunately we only funded a 
1-year project. We understand that you were also supportive of early 
intervention and treatment of autism. We'd like to work with you to 
find a way to permanently fund Tricare's coverage of autism services.
    Mr. Hagel. As I understand it, the TRICARE program provides medical 
benefits under the basic program and provides non-medical support 
benefits (including respite care) to Active Duty Families under the 
Extended Health Care Option (ECHO). TRICARE has always covered medical 
benefits such as speech and physical therapy, to individuals with an 
Autism diagnosis under the medical benefit. In addition, TRICARE has 
implemented coverage of Applied Behavioral Analysis (ABA) as a medical 
benefit, and is reviewing additional provider treatment options for 
medical care. This medical care will be provided by authorized TRICARE 
providers who are licensed or certified to provide ABA therapy. If I am 
confirmed, I look forward to working with you on this important issue 
that affects so many families.
                                 ______
                                 
           Questions Submitted by Senator Richard Blumenthal
                          vietnam era veterans
    99. Senator Blumenthal. Mr. Hagel, an estimated 70,000 veterans who 
served in the Vietnam war suffered from undiagnosed at the time Post 
Traumatic Stress Disorder (PTSD) during their service and were given 
less-than-honorable discharges. I understand that less than 2 percent 
of those who have applied for discharge upgrades have been successful 
before the Army's records correction boards. In contrast, today's 
military personnel are properly and, if appropriate, given a medical 
discharge, which entitles them to disability compensation, medical 
care, and support. If confirmed, will you review the decisions and 
guidance of the Army records correction boards with regards to the 
denial of Vietnam veterans' requests for discharge upgrades?
    Mr. Hagel. Yes. I understand that the Boards for the Correction of 
Military Records all operate under procedures approved by the Secretary 
of Defense and if confirmed, I will ensure that those procedures 
protect all veterans suffering from PTSD.

                     military-to-military relations
    100. Senator Blumenthal. Mr. Hagel, as a component of the Northern 
Distribution Network (NDN), Azerbaijan provides ground and naval 
transit for roughly 40 percent of the International Security Assistance 
Force (ISAF) coalition's supplies bound for Afghanistan. Azerbaijan has 
extended important over-flight clearance, landing, and refueling 
operations for U.S. and NATO flights to support ISAF. In 2012, more 
than 150 aeromedical evacuation flights of U.S. Air Mobility Command 
were flown over Azerbaijan, rushing more than 2,200 patients to a 
higher level of medical care. How do you assess current U.S.-Azerbaijan 
military-to-military relations and what will be your policy to expand 
this strategic partnership?
    Mr. Hagel. My assessment is that the U.S.-Azerbaijan defense 
relationship is strong--but still has room to grow. If confirmed, I 
will build on existing cooperation and ensure DOD continues to engage 
in regular consultations at high levels with Azerbaijani counterparts 
to identify areas where we can strengthen our cooperation and 
partnership. That growth will be based on shared interests and 
willingness to cooperate, available resources, and capacity to absorb 
new programs. I will also continue our engagement with Azerbaijan aimed 
at supporting Azerbaijan's defense reforms, its ability to interoperate 
with NATO, to deploy forces in support of coalition operations, and its 
capacity to address terrorism and other transnational threats and 
secure its maritime borders and energy infrastructure. I would look for 
the United States to be Azerbaijan's partner of choice and help 
Azerbaijan's defense establishment contribute to regional security and 
stability.

    101. Senator Blumenthal. Mr. Hagel, in September 2012, Secretary of 
Defense Leon Panetta invited the Chinese PLA to observe the Rim of the 
Pacific (RIMPAC) military exercise that will take place in 2014. In 
2012, RIMPAC involved participants from more than 20 countries. If 
confirmed, would you consider extending a similar invitation to observe 
RIMPAC to Taiwan?
    Mr. Hagel. The United States is firm in its commitment to Taiwan's 
self-defense needs under the Taiwan Relations Act. That relationship 
includes defense exchanges and other interactions consistent with our 
unofficial relationship and as provided for in the Taiwan Relations 
Act. If confirmed, I will work to identify appropriate exchanges and 
interactions to assist Taiwan's self-defense capabilities, and 
contribute to peace and stability in the Taiwan Strait.

    102. Senator Blumenthal. Mr. Hagel, if confirmed as Secretary of 
Defense, what additional steps would you take to strengthen our 
military-to-military relationship with Israel?
    Mr. Hagel. If confirmed, I will consider what additional steps 
could further strengthen our military relationship with Israel, 
including but not limited to missile defense, intelligence sharing, 
counterterrorism, and maritime security. I know that over the past 4 
years the administration has taken unprecedented steps to expand our 
cooperation with Israel. Today, with congressional support, the United 
States provides Israel over $3 billion annually in Foreign Military 
Financing (FMF), which is the backbone of our commitment to Israel's 
defense. This financial support is complemented by extensive military-
to-military cooperation, including joint exercises. If confirmed, I 
will seek to ensure that we build on this cooperation and expand it 
into new areas as the United States and Israel address emerging threats 
at this time of historic change in the Middle East. I believe we have a 
tremendous opportunity for further expansion of our missile defense 
efforts as well as cooperation in areas like space and cyberspace.
    The foundation for successful cooperation is the close personal 
relationships U.S. military and defense civilian leaders have with 
Israeli military and defense leadership. Secretary Gates and Secretary 
Panetta, as well as the Chairmen of the Joint Chiefs of Staff, have all 
developed very close relationships with their counterparts. Continuing 
with this tradition will be one of my highest priorities if I am 
confirmed. This will be vital to ensuring that we understand Israel's 
defense requirements, and to finding ways to address mutual threats 
that meet our common interests.

    103. Senator Blumenthal. Mr. Hagel, what role does Israel's 
participation in the Joint Strike Fighter (JSF) program have in 
maintaining Israel's qualitative military edge in the region?
    Mr. Hagel. I believe that the JSF will be a core component of 
Israel's qualitative military edge (QME). Israel's QME is predicated 
upon its ability to defend itself, by itself, from any and all threats 
in the region--whether the threat comes from state or non-state actors 
or a coalition of states. Air superiority is one of the most important 
components to Israel's QME, and the unique capabilities of the JSF will 
ensure Israeli air superiority for decades. Israel will be the only 
nation in the region with a fifth generation fighter aircraft, and 
Israel's JSF will be tailored to meet its specific security 
requirements.

                     reserve component mobilization
    104. Senator Blumenthal. Mr. Hagel, following the September 11, 
2001, terrorist attacks against the United States, President Bush 
issued a partial mobilization of the Reserve components, authorizing 
the involuntary mobilization of up to 1 million members of the National 
Guard and Reserves at any one time for repeated service of up to 2 
years. National Guard units like the 143rd Military Police Company out 
of West Hartford and the 1048th Transportation Company out of Stratford 
have served in Afghanistan for repeated deployments. I know the 
sustainability of an operational reserve is something that concerns 
you. In 2007, you introduced an amendment limiting the deployment of 
servicemembers serving in Iraq to 12 months. While the National Guard 
and Reserve have served with distinction, the operational reserve has 
without question had impacts that need to be addressed here at home. 
What is your vision for maintaining readiness levels within the Reserve 
component without continued Overseas Contingency Operations (OCO) 
funding post-2014?
    Mr. Hagel. I appreciate Congress' efforts in the NDAA for Fiscal 
Year 2012 to increase authorities to fully use the Reserves in a 
planned and programmed manner. Without OCO, the required Reserve 
component readiness funding would need to be included in the 
Department's annual baseline budget to align resources with the 
Department's long-term mission needs.

    105. Senator Blumenthal. Mr. Hagel, what mobilization authority is 
appropriate to use as we continue our counterterrorism efforts with the 
Reserve component?
    Mr. Hagel. If confirmed, and in light of the new strategy, I will 
consider the question of additional mobilization authorities, but at 
the present time I believe that appropriate policies and procedures are 
in place and current laws are adequate.
                                 ______
                                 
             Questions Submitted by Senator Mazie K. Hirono
                           u.s.-pacific ties
    106. Senator Hirono. Mr. Hagel, given the increasingly complex 
interrelationships of military, economic, political and diplomatic 
policies relevant to regional security issues, what is your view on the 
role for DOD institutes like Hawaii's Asia-Pacific Center for Security 
Studies (APCSS) in advancing some of the goals of the rebalance to the 
Pacific and also in accomplishing a U.S. Pacific Command (PACOM) 
objective of developing professional and personal ties among with our 
allies throughout the region? APCSS brings together military and 
civilian representatives of the United States and Asia-Pacific nations 
to address regional and global security issues through its 
comprehensive program of executive education and conferences.
    Mr. Hagel. APCSS contributes to advancing America's Pacific 
rebalance by enhancing professional and personal ties with partners 
throughout the region, strengthening defense institutional capacity, 
promoting critical thinking on regional security issues, and providing 
a venue for communication and exchange of ideas involving military and 
civilian participants. I agree that APCSS has a unique convening 
ability to bring together influential civilian and military 
decisionmakers from governments in the region with business and civil 
society leaders.

    107. Senator Hirono. Mr. Hagel, in your response to an advance 
policy question concerning additional steps the United States should 
take to defend against the North Korean ballistic missile threat, you 
state that the ``United States should also seek to enhance bilateral 
and trilateral missile defense cooperation with our ROK [Republic of 
Korea] and Japanese allies particularly in the area of information 
sharing.'' Last year, the Korean public's opposition, inflamed by 
heightened tensions with Japan, largely led to the failure of the ROK 
Government to sign an agreement with Japan that would allow the two 
countries to exchange key military intelligence. If confirmed, what 
would you do to enhance bilateral and trilateral defense cooperation 
with these allies?
    Mr. Hagel. If confirmed, I will continue to explore ways to deepen 
our alliance cooperation with Japan and South Korea, emphasize and 
encourage trilateral cooperation, and, where possible, support efforts 
to strengthen ties between the two countries. I understand there are 
significant cooperative efforts already underway, including the Defense 
Trilateral Talks, which recently were conducted at the assistant 
Secretary level in Tokyo, and I would continue these initiatives, if 
confirmed. Deeper trilateral cooperation enhances our Alliance 
capabilities, sends a powerful message to the region, and serves to 
reinforce deterrence against possible aggression.

    108. Senator Hirono. Mr. Hagel, in your response to the advance 
policy question on the status of the U.S.-China relationship, you 
recognize the fact that ``China is rapidly modernizing its military and 
increasingly asserting claims to territory''. If confirmed, how should 
the United States respond to China's increasingly aggressive actions 
over the Senkaku Islands and what steps will you take to assure our 
Japanese allies of America's commitments to defend Japanese territory 
under Article V of the Treaty of Mutual Cooperation and Security.
    Mr. Hagel. If confirmed, I will continue our longstanding 
commitments to all of our Treaty allies, including Japan. My 
understanding is that the administration has made clear that while the 
United States takes no position on the sovereignty of the Senkaku 
Islands, our Treaty commitments apply to all territories under the 
administration of Japan. I would support continuing this policy and 
communicate it clearly to all parties involved in this issue. If 
confirmed, I also would continue U.S. efforts to promote the peaceful 
handling of the Senkaku Island dispute by all parties while at the same 
time ensuring that the United States maintains the ability to fulfill 
all of its security commitments.

    109. Senator Hirono. Mr. Hagel, in 2011, while I was attending the 
Asia-Pacific Economic Cooperation (APEC) summit in Hawaii, Secretary of 
State Hillary Clinton appeared at the East-West Center in Honolulu and 
gave an address titled ``America's Pacific Century''. In her remarks, 
she stated that the United States has ``a strong relationship with 
Taiwan, an important security and economic partner . . . .'' In what 
specific ways will you build on this existing foundation and further 
enhance this important relationship as Secretary of Defense?
    Mr. Hagel. The United States is firm in its commitment to Taiwan's 
self-defense needs under the Taiwan Relations Act. This could include 
the provision of defense articles and services, consistent with the 
Taiwan Relations Act, as well as training opportunities designed to 
improve Taiwan's self-defense capabilities.

    110. Senator Hirono. Mr. Hagel, what is your current assessment of 
our relationships with Japan, South Korea, Australia, the Philippines, 
and Taiwan? Please describe your goals should you be confirmed as 
Secretary of Defense for each of these relationships.
    Mr. Hagel. My understanding is that our relationships with these 
allies and partners remain extraordinarily strong, and, if confirmed, I 
would ensure that we continue to prioritize our critical alliances and 
partnerships in the Asia-Pacific region.
    Japan is the linchpin of our presence in Asia. Japan is an 
increasingly critical partner in missile defense, humanitarian 
assistance and disaster relief, maritime security, and other important 
areas. If confirmed, I would continue the work of my predecessors to 
broaden and deepen this critical alliance to ensure that it is capable 
of responding to the security challenges of the 21st century.
    The United States has a similarly robust relationship with the 
Republic of Korea (ROK). My understanding is that we have a 
comprehensive agenda aimed at facilitating the smooth transfer of 
wartime operational control in 2015, and ensuring the ROK Government 
has the capabilities necessary to defend the peninsula. If confirmed, I 
would continue these important efforts, and would also continue to 
stress the importance of trilateral ties between Japan, the ROK, and 
the United States.
    The U.S.-Australia alliance is very strong, reflecting the enduring 
bonds forged through the sacrifices of United States and Australian 
forces in every major conflict of the last 100 years. The joint U.S.-
Australia force posture initiatives in northern Australia reflect a 
reality we all recognize: security and prosperity of our two great 
nations is inextricably linked to the security and prosperity of the 
Asia-Pacific region. If confirmed, my goal would be to continue to 
invest in this critical relationship.
    I understand that our alliance with the Philippines has matured 
substantially during the Obama and Aquino administrations. Over the 
past few years, our defense relationship has developed in many 
important dimensions. If confirmed, I would continue this trend by 
exploring options for increased rotational presence for U.S. forces in 
the Philippines while continuing to support the Philippines' 
development of a minimum credible defense capability.
    The Taiwan Relations Act provides that the United States ``will 
make available to Taiwan such defense articles and defense services in 
such quantity as may be necessary to enable Taiwan to maintain a 
sufficient self-defense capability.'' That policy has contributed to 
peace and stability in the region for over 30 years and is consistent 
with longstanding U.S. policy, which calls for a peaceful resolution of 
the Taiwan issue in a manner acceptable to the people on both sides of 
the Taiwan Strait. If confirmed, I would work closely with Congress, 
the Commander of U.S. Pacific Command, and the Department's interagency 
partners to ensure the continued effective implementation of all of the 
relevant provisions of the Taiwan Relations Act.

                            women in combat
    111. Senator Hirono. Mr. Hagel, in light of DOD's recent 
announcement with regard to the role of women in combat, I'd like to 
ask about the priority you will give to developing implementation plans 
to move forward with the U.S. NAP on WPS released by the White House in 
December 2011. It is my understanding that the Department of State and 
USAID have released implementation plans building on the NAP.
    If the White House plan envisions an active role in this regard by 
DOD, I would be interested in your vision for moving forward in this 
regard.
    Mr. Hagel. I understand that, in the first year of implementation, 
the Department made noteworthy progress on the NAP for WPS objectives 
both internally and with a range of foreign defense partners. First and 
foremost was Secretary Panetta's decision to rescind the restriction on 
women in direct combat, a decision I applaud. Externally, in bilateral 
and multilateral engagements, I am told combatant commands and our 
Regional Centers are focused on building the capacity of partner 
militaries to promote and strengthen gender equality.
    I understand that the Department is developing a DOD Instruction to 
institutionalize the NAP's priorities. If confirmed, I would continue 
this progress in implementing the NAP and ensure the Department 
continues to lead by example on WPS issues.

                            family programs
    112. Senator Hirono. Mr. Hagel, last year I attended a graduation 
ceremony at Pearl Harbor-Hickam Air Force Base. The graduates were 4-
year-olds from military families involved in a YMCA [Young Men's 
Christian Association] program. These kids reminded me that when our 
men and women in uniform are deployed, their families serve too. In the 
House of Representatives, I was the Co-Chair of the House Impact Aid 
Coalition. Impact Aid helps support local school districts that educate 
military-connected children. Please elaborate on how you will work to 
provide child care and educational opportunities to the children of 
military families.
    Mr. Hagel. I fully support the Impact Aid program, and these funds 
are primarily delivered through the Department of Education to local 
school districts. In addition, DOD has been providing hundreds of 
millions of dollars to local school districts through a 
congressionally-directed program to rebuild locally owned schools 
located on military bases that are falling into disrepair. More 
directly, DOD has spent billions of dollars on a multi-year program to 
rebuild Department owned schools that are in failing condition.
    I believe that it is the duty of the Department to prepare military 
families to cope with the challenges that military service brings In 
order to build and sustain resilient military families, the Department 
must continue to focus on programs that enhance their social, 
financial, educational and psychological well-being.
    I believe there are opportunities to improve the efficiency and 
accessibility of the resources and programs that the Department, other 
Federal agencies, State and local governments, and Department partners 
like the YMCA provide our servicemembers and their families. If 
confirmed, I will explore these opportunities and how we can better 
coordinate efforts to more effectively provide programs to our military 
families.

                           recruit readiness
    113. Senator Hirono. Mr. Hagel, recently, a group of retired 
generals and admirals called Mission Readiness found that 75 percent of 
young Americans ages 17 to 24 are unable to join the military, 
primarily because they are poorly educated, physically unfit, or 
involved in crime. As Secretary of Defense, how will you work with 
other Federal agencies to combat these problems and improve the pool of 
potential recruitments?
    Mr. Hagel. Today's enlistment qualification standards are well-
defined, supported by years of experience, and have stood the test of 
time. They are driven by the need to provide the Services with men and 
women who are prepared to adapt to the rigors of military life and meet 
performance requirements. It is imperative we maintain the highest 
standards for these reasons.
    If confirmed, I will work closely with organizations such as 
Mission Readiness, the National Prevention Council and the First Lady's 
office to address these issues. I will explore opportunities in the 
Department to pilot healthy initiatives at several military 
installations to serve as a model for the department, and the Nation.

                            energy security
    114. Senator Hirono. Mr. Hagel, across the globe resource scarcity, 
political and social upheaval, and other factors are changing the 
nature of the threats our Nation faces. These new challenges are 
particularly pronounced when we consider the global energy markets on 
which we rely. Prices are set based on global demand--not U.S. 
strategic and operational concerns--and many of the source nations are 
not our closest allies. Do you view U.S. energy security as a vital 
component to our overall national security?
    Mr. Hagel. Energy security is central to national security. DOD can 
play a role in promoting U.S. energy security in two ways.
    First, DOD can improve the energy security of military operations 
and defense facilities. The Department has a long history of harnessing 
innovation to meet defense challenges in ways that can benefit the 
civilian economy, and there is potential for such gains in this case.
    Second and more broadly, a core mission for DOD is preventing 
conflict, through deterrence and forward presence, partnerships with 
other nations, and a range of other activities. The Department also 
plays a supporting part in whole-of-government efforts to build peace, 
stability, and prosperity around the world. I view the Department's 
shaping and prevention efforts as vital to our overall national 
security, given the complexity of current and emerging threats and 
challenges. In that context, energy security is both part of the 
challenge and the response for DOD.

    115. Senator Hirono. Mr. Hagel, what role, if any, do you believe 
that DOD has in supporting efforts to increase U.S. energy security?
    Mr. Hagel. See answer to Question #114.

    116. Senator Hirono. Mr. Hagel, Congress has included provisions in 
past NDAAs to give the Secretary of Defense the guidance, tools, and 
support for initiatives intended to improve the military's energy 
security and reduce fuel costs. These include section 526 of the Energy 
Independence and Security Act, establishment of an Office of 
Operational Energy Plans and Programs headed by an assistant secretary, 
and other provisions. If confirmed, do you intend to continue to 
encourage the Services to utilize these authorities to meet their 
operational and installation energy needs effectively?
    Mr. Hagel. Yes.
                                 ______
                                 
                Questions Submitted by Senator Tim Kaine
                   atlantic-pacific military presence
    117. Senator Kaine. Mr. Hagel, in 2012, DOD released its new 
strategy, noting a rebalance to Asia while also maintaining our 
commitments in the Middle East. This strategy is heavily dependent on 
the maritime forces of the Navy and the Marine Corps. What is your view 
on the necessity of maintaining our naval power projection in the 
Atlantic in order to maintain our presence in the Middle East, 
especially given the threat of Iran to the region?
    Mr. Hagel. Today, the United States must be able to project naval 
power globally, with a strategic emphasis on rebalancing to the Asia-
Pacific region and maintaining presence in and around the Middle East. 
Our Atlantic fleet will continue to play a vital role in meeting our 
global demands. If confirmed, I would work with the Secretary of the 
Navy, the Chief of Naval Operations, the Commandant of the Marine 
Corps, and the Chairman of the Joint Chiefs of Staff to ensure a strong 
and sustainable Navy and Marine Corps that can prevail in light of 
current and projected challenges.

    118. Senator Kaine. Mr. Hagel, please describe your view on our 
naval presence, given the current defense strategic guidance and 
ongoing conflicts in the Middle East and North Africa region.
    Mr. Hagel. Historically, the Nation has used globally deployable 
Naval forces to provide presence and power projection capabilities in 
multiple regions, often shifting between regions on short notice in 
response to emerging security threats. Naval presence will continue to 
be vital if we are to rebalance toward the Asia Pacific while 
maintaining our defense commitments in the Middle East and elsewhere. 
If confirmed, I would work with the Secretary of the Navy, the Chief of 
Naval Operations, the Commandant of the Marine Corps, and the Chairman 
of the Joint Chiefs of Staff to ensure a strong and sustainable Navy 
and Marine Corps that can prevail in light of current and projected 
challenges.

                              shipbuilding
    119. Senator Kaine. Mr. Hagel, State shipbuilding plans are 
critical to meet our strategic needs, as well as critical to maintain 
our defense industrial base and supply chain. Given the affordability 
challenges facing the defense industry, you have the responsibility to 
ensure that you set the course for our Navy's force structure and 
maintain the Nation's security, all while balancing cost and risk of 
shipbuilding efforts. Would you agree to work closely with me, with 
this committee, and with this Congress in addressing our shipbuilding 
needs?
    Mr. Hagel. Yes.

    120. Senator Kaine. Mr. Hagel, will you remain committed to 
ensuring that the vessels we build for our sailors and marines are the 
finest this Nation can produce and that they meet military 
classifications for warships?
    Mr. Hagel. I am committed to ensuring that survivability shall be 
addressed on all new surface ship, combat systems and equipment 
designs, overhauls, conversions, and modernizations in order that the 
design is provided a balance of survivability performance, risk, and 
cost within program objectives.

    121. Senator Kaine. Mr. Hagel, will you agree to analyze all 
avenues of optimal program management and cost control measures in 
shipbuilding in order to allow shipbuilders to optimize design and save 
taxpayers' dollars?
    Mr. Hagel. Yes.

                        defense industrial base
    122. Senator Kaine. Mr. Hagel, numerous studies by the Defense 
Business Board, GAO, and others point to a need for increased 
collaboration between industry and DOD. This becomes ever more 
important as the need for efficiencies increases and the number of 
industry participants decreases. DOD must provide our servicemembers 
with the best equipment possible. Enhancing innovation for defense 
applications through the current acquisition system may be an ongoing 
challenge in this fiscal environment. How will DOD sustain and improve 
capabilities that have been developed through collaborative innovation 
with industry?
    Mr. Hagel. Industry is our partner in defending this Nation and I 
fully recognize the vital role it plays in our national security. If 
confirmed, I will assess our current programs regarding collaborative 
efforts with industry, particularly in the areas of research and 
development, to leverage the innovation of the private sector.

    123. Senator Kaine. Mr. Hagel, what is your assessment of the 
health of the defense industrial base and areas that require more 
attention?
    Mr. Hagel. I believe in a strong, healthy industrial base, and I am 
concerned that changes in the defense market may impact that base. If 
confirmed, I will ensure the Department has a process to assess 
fragility of the capabilities needed provide our military with the best 
equipment in the world.

                           veteran assistance
    124. Senator Kaine. Mr. Hagel, you noted in your advance policy 
questions your commitment to improving the care veterans receive as 
they transition from Active Duty to civilian life. In the past few 
years, we have seen a high rate of unemployment among veterans, as well 
as increasing rates of suicide among this population. In your view, 
what are the most critical areas of improvement for veterans care?
    Mr. Hagel. This is a far ranging issue that will warrant 
significant attention from me, if confirmed. It is my understanding 
that our current focus areas are providing: a seamless transition of 
health information from DOD to the Department of Veterans Affairs, 
timely processing of disability claims, and transitional support such 
as employment assistance and related help. If confirmed, I will 
evaluate the entire domain of veteran's transition for effectiveness 
and where we need more improvement.

    125. Senator Kaine. Mr. Hagel, what are the areas of potential 
collaboration among public and private sector entities?
    Mr. Hagel. I understand that there are numerous areas where public 
and private collaborations could advance solutions for some of our most 
pressing issues with veterans care. These include opportunities to 
collaborate in: scientific research; improving access to mental health 
care and piloting new and innovative models of care; ensuring that 
military training in medical triage and care provision translates to 
employment in the private sector through collaboration with 
professional organizations, certification bodies, and academic training 
programs (e.g., medics serving as EMTs); and developing evidenced-based 
care guidelines and treatment protocols for psychological health and 
Traumatic Brain Injury.
                                 ______
                                 
           Questions Submitted by Senator Angus S. King, Jr.
                   concern about the industrial base
    126. Senator King. Mr. Hagel, last year, the Chief of Naval 
Operations (CNO), Admiral Jonathan Greenert, testified before this 
committee about the consequences of sequestration for shipbuilding. 
Admiral Greenert said that if sequestration kicks in, we will lose 
capabilities in some of our shipyards and we would be looking at a 
fleet of 230 ships compared to the current fleet of 285 ships. He went 
on to say, ``I'm very concerned about an industrial base that would be 
able to adjust from sequestration. It would be very difficult to keep a 
shipbuilder that could be efficient in building the types of ships we 
need.'' In short, he described the very type of irreversible 
consequences that we must avoid. I am proud of the workers at Bath Iron 
Works in my home State, but this issue is larger than that because the 
six remaining shipyards that build Navy ships are truly strategic 
assets that once lost, cannot be restored in a timely manner. Do you 
agree with the CNO's assessment and share my alarm that sequestration 
will result in greater per unit costs, an unacceptable danger to our 
industrial base, and a smaller Navy fleet?
    Mr. Hagel. Yes, I agree that the industrial base is a strategic 
asset that needs to be protected and that sequestration may have 
irreversible impacts in the long term. Sequestration budget cuts would 
certainly reduce ship procurement and maintenance, impacting fleet 
size. Sequestration would also implement automatic spending cuts 
without regard for strategy or priorities, so the Navy would be forced 
into a position where they could not execute contract options that were 
negotiated to minimize unit costs and stabilize workload in the 
shipyards. If confirmed, I will work with Congress to avert 
sequestration and work with the Navy to protect the industrial base.

                        ddg-51 destroyer program
    127. Senator King. Mr. Hagel, the enacted NDAA for Fiscal Year 2013 
authorized a multi-year procurement of up to 10 DDG-51 destroyers 
during the next 5 years beginning in fiscal year 2013. The 
Appropriations Committees of both the House of Representatives and the 
Senate adopted fiscal year 2013 defense appropriations bills also 
included funding to support a 10-ship program. Multi-years present 
unique opportunities to procure required major defense systems more 
cost effectively than through annual procurements. I realize that 
enactment of the fiscal year 2013 defense appropriations legislation is 
required before the Navy can execute this vital multi-year procurement 
and achieve cost savings while also helping to stabilize our 
specialized shipbuilding industrial base. Will you let the leadership 
on both sides of the aisle in the Senate and the House of 
Representatives know how critical it is that we enact a fiscal year 
2013 Defense Appropriations Bill?
    Mr. Hagel. If confirmed, I will certainly continue to stress to 
Congress the importance of receiving an enacted fiscal year 2013 
Defense Appropriations Bill. A year-long CR reduces the Department's 
funding flexibility by spending money on last year's priorities not 
this year's--an untenable position. It also pushes the Department to 
use month-to-month contracts and prohibits doing ``new starts'' in 
military construction or acquisition programs.

                            berry amendment
    128. Senator King. Mr. Hagel, according to the Berry Amendment, DOD 
cannot procure clothing items unless they are produced in the United 
States. Congress first established this domestic preference for DOD 
procurement in 1941, and for decades the military branches complied by 
issuing American-made uniforms, including athletic footwear, for our 
troops. In recent years, however, DOD has circumvented this policy by 
issuing cash allowances to soldiers for their own purchase of training 
shoes.
    New Balance makes a compliant athletic shoe. New Balance has 5,000 
pairs of Berry-compliant footwear sitting on their shelves, as we 
speak. Next year, enforcing compliance with Berry would actually save 
money. Currently, the Navy gives a $68 cash allowance to recruits, and 
Berry-compliant shoes from New Balance cost $68. Next year, the 
allowance will increase to $74, but the Berry-compliant shoe cost will 
remain the same. That's a $6 savings per pair of running shoes.
    Will you review this policy and work to assure that compliant gear 
is purchased and U.S. jobs are protected?
    Mr. Hagel. If confirmed, I will review the Department's policies 
pertaining to the athletic running shoes provided to military enlisted 
recruits and will ensure the Department meets its obligations under the 
Berry Amendment.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                            taiwan relations
    129. Senator Inhofe. Mr. Hagel, the 1979 Taiwan Relations Act and 
the Six Assurances of 1982 have contributed to the peace and stability 
of the Asia-Pacific region for the past 3 decades. With the military 
balance--including air superiority--gradually shifting in China's 
favor, what are your plans to implement the security commitment the 
United States has for Taiwan under this framework?
    Mr. Hagel. In my view, the increasing complexity and sophistication 
of the military threat to Taiwan from China means that Taiwan must 
devote greater attention to asymmetric concepts and innovative 
technologies to maximize Taiwan's strengths and advantages. If 
confirmed, I would work closely with Congress, throughout DOD, and with 
our interagency partners to ensure the continued effective 
implementation of all of the relevant provisions of the Taiwan 
Relations Act.
    I believe that we should make available to Taiwan those defense 
articles and defense services which enable Taiwan to maintain a 
sufficient self-defense capability, today and into the future. If 
confirmed, I will look at what specific self-defense capabilities 
Taiwan needs in light of the security situation in the Taiwan Strait 
and the evolving military capabilities on the mainland.

    130. Senator Inhofe. Mr. Hagel, as Taiwan is likely to retire some 
of its older fighter aircraft in the next 5 to 10 years, do you believe 
that sales of advanced aircraft are an important next step in this 
commitment?
    Mr. Hagel. See answer to Question #129.

                             east china sea
    131. Senator Inhofe. Mr. Hagel, last August, Taiwan President Ma 
Ying-jeou proposed an East China Sea Peace Initiative to address the 
ongoing dispute between Japan and China over the Senkaku or Diaoyutai 
Islands. While Taiwan also claims sovereignty over the islands as part 
of the Republic of China, it ``calls on all parties concerned to 
resolve disputes peacefully based on the U.N. Charter and relevant 
provisions in international law.'' In its proposal, Taiwan goes on to 
call on all parties to:

    1.  Refrain from taking any antagonistic actions;
    2.  Shelve controversies and not abandon dialogue;
    3.  Observe international law and resolve disputes through peaceful 
means;
    4.  Seek consensus on a code of conduct in the East China Sea; and
    5.  Establish a mechanism for cooperation on exploring and 
developing resources in the East China Sea.

    Do you believe that such an initiative is a constructive and 
necessary step in resolving the dispute in a peaceful and comprehensive 
manner?
    Mr. Hagel. If confirmed, working with the Secretary of State and 
other interagency counterparts, I would carefully consider any 
initiative that seeks to reduce tensions and facilitate a diplomatic 
solution to the current tensions.

                               east asia
    132. Senator Inhofe. Mr. Hagel, Myanmar has been invited as an 
observer to the Cobra Gold exercises in 2013. Do you believe inclusion 
of the Burmese military is timely?
    Mr. Hagel. I understand that plans call for two Burmese military 
officers to be included in the Cobra Gold Observer Program as a way to 
promote the Burmese military's exposure to the international community 
and international norms of behavior. I believe that this step is timely 
and sensible. I also agree with the current Department stance that 
future participation should be contingent on continued progress by the 
Government of Burma in consolidating democratic reforms, improving its 
human rights record, promoting national reconciliation, and suspending 
military ties to North Korea.

    133. Senator Inhofe. Mr. Hagel, do you envision that the Burmese 
will be brought into security partnerships with the United States 
bilaterally or through multilateral arrangements with regional 
militaries?
    Mr. Hagel. I support the administration's approach of cautious and 
calibrated engagement with the Burmese military through bilateral and 
multilateral arrangements. If confirmed, I will consult with Congress 
regarding the scope and scale of bilateral engagement. I also agree 
with the current policy that a normalization of defense relations with 
Burma can only occur if the Government of Burma continues its efforts 
to democratize, improves its human rights record, implements national 
reconciliation efforts with its various ethnic groups, and suspends 
military ties to North Korea. I also support robust multilateral 
engagement of the United States with the Association of Southeast Asian 
Nations (ASEAN) and its ASEAN Defense Ministers Meeting-Plus (ADMM+) 
efforts, of which Burma is a member and will be chair in 2014.

    134. Senator Inhofe. Mr. Hagel, will a reduction of DOD's budget 
impact security cooperation and regional security in East Asia?
    Mr. Hagel. As the President has stated, the United States is a 
Pacific power with enduring interests in the peace and security of the 
region. If confirmed, I will work to uphold and prioritize our security 
commitments in the Asia-Pacific region. However, sequestration's 
effects would be disastrous for the Department and would necessitate a 
review of the new defense strategy.

    135. Senator Inhofe. Mr. Hagel, will budget cuts impact our ability 
to perform humanitarian relief missions or participate in military 
exercises like Thailand's Cobra Gold?
    Mr. Hagel. If confirmed, I would continue ongoing efforts to ensure 
that the United States remains the security partner of choice in the 
Asia-Pacific region. However, sequestration would necessitate a 
reevaluation of the U.S. defense strategy and any further reductions 
could require adjustments to overall implementation of the strategy.

                                  iran
    136. Senator Inhofe. Mr. Hagel, the Iranian regime continues to 
threaten neighbors--our allies in the region like Azerbaijan. There 
were news reports throughout the past year that Azerbaijan's security 
services arrested several activists belonging to the Iranian 
intelligence service and Hezbollah. These operatives were suspected of 
planning terrorist attacks against foreigners in the capital Baku, 
including the U.S. and Israeli embassies. The United States has long-
term interests in the Caspian region and the South Caucasus. Azerbaijan 
and the United States cooperate in countering terrorism, nuclear 
proliferation and narcotics trafficking, and promoting security in the 
wider Caspian region and beyond. As a key component to the NDN, 
Azerbaijan provides ground and naval transit for roughly 40 percent of 
the ISAF coalition's supplies bound for Afghanistan. Azerbaijan 
expressed its commitment to support U.S. and NATO efforts in 
stabilizing Afghanistan beyond 2014 and is among first eight non-NATO 
potential operational partners. Azerbaijan has been extending important 
over-flight clearance, landing, and refueling operations for U.S. and 
NATO flights to support ISAF. In 2012, more than 150 aero-medical 
evacuation flights of U.S. Air Mobility Command have flown over 
Azerbaijan, rushing more than 2,200 patients to a higher level of 
medical care. The United States has also energy interests in the region 
and our energy companies have interests in exploring Caspian Sea oil 
resources and deliver them westwards to provide for energy security to 
our European allies.
    If confirmed, what do you think DOD should do to strengthen the 
security of our regional allies, like Azerbaijan, that face pressure 
and open threats from Iran on a daily basis, and what are the areas you 
think we should look into to expand security and defense cooperation 
with Azerbaijan to ensure it has adequate means to defend its 
territory?
    Mr. Hagel. I have deep concerns about Iran's destabilizing 
activities and recognize the many shared interests between the United 
States and Azerbaijan. If confirmed, I would continue the Defense 
Department's high level engagement with its counterparts in Azerbaijan. 
In particular, I would seek to strengthen existing areas of partnership 
and identify new areas of cooperation in support of Azerbaijan's 
defense reforms, its ability to interoperate with NATO and deploy to 
coalition operations, its capacity to address terrorism and other 
transnational threats and to secure its maritime borders and energy 
infrastructure. I would look for the United States to be Azerbaijan's 
partner of choice and help Azerbaijan's defense establishment 
contribute to regional security and stability, such as by continuing to 
encourage Azerbaijan's significant support to international efforts in 
Afghanistan.

                           military suicides
    137. Senator Inhofe. Mr. Hagel, I am very concerned about the 
significant rise in military suicides. According to the most current 
published DOD Suicide Event Report, 301 suicides occurred among 
military servicemembers in 2011. DOD recently reported 349 suicides in 
2012--more than the total number of deaths incurred in combat. Do you 
believe DOD is doing all it can to prevent the tragic number of 
suicides in the Military Services?
    Mr. Hagel. The Department is doing all that it can given the 
complex nature of suicide and society's limited base of knowledge in 
this realm. Suicide among our Nation's military is clearly tragic and 
will require solutions that are informed by evidence of effectiveness. 
There is some proof that peer support and call lines help. There is 
also a need to continue the focus on resilience building and leadership 
education.

    138. Senator Inhofe. Mr. Hagel, what will you do to get this 
problem fixed?
    Mr. Hagel. If confirmed, I am committed to seeing that programs 
that focus on resiliency and leadership education continue and are 
further evaluated with additional research. Furthermore, I understand 
that the Department is in the process of drafting its first 
comprehensive suicide prevention program policy. It would be a top 
priority to review and implement this program policy as soon as it is 
ready.

    139. Senator Inhofe. Mr. Hagel, is DOD fully funding the Services' 
suicide prevention programs and research programs that inform us about 
effective prevention strategies?
    Mr. Hagel. I am not currently familiar with the details of our 
research program spending in this area, but I share the views of the 
leadership of the Army and the entire Department that this is a top 
priority. If confirmed, I will review these research programs for 
efficiency and effectiveness in identifying strategies to prevent 
suicides and will work to ensure that sufficient funding is available 
for this important effort. As with other programs, sequestration could 
have a damaging impact on our efforts in this area.

    140. Senator Inhofe. Mr. Hagel, if confirmed, how will you continue 
to fund these efforts under sequestration and a year-long Continuing 
Resolution?
    Mr. Hagel. The impact of sequestration combined with a year-long 
Continuing Resolution will present the Department with very serious 
funding challenges. I am deeply concerned about the significant rise in 
military suicides and am firmly committed to ensuring that the 
Department have the funds necessary to provide high-quality behavioral 
health care to servicemembers and their families. But protecting these 
vital personnel programs will require sacrifices in other important 
areas.

   impact of sequestration on the defense health program and family 
                            support programs
    141. Senator Inhofe. Mr. Hagel, in your advance policy questions 
you agreed with the Joint Chiefs when they said that a full-year 
Continuing Resolution and sequestration would ``damage our readiness, 
our people, and our military families.'' Additionally, you stated: 
``Sustaining family programs in the current fiscally constrained 
environment will be challenging, but it is of vital importance.''
    Under sequestration, do you agree that morale will suffer and 
beneficiaries may not be able to get the health care and support 
services they need?
    Mr. Hagel. I share the concern of our senior military leaders that 
the morale of the force will be affected in ways that are unpredictable 
if sequester goes into effect and disrupts our training, readiness, and 
family support programs. If confirmed, I will attempt to ensure that 
reductions do not break faith with our troops and they continue to 
receive the health care and support services they need.

    142. Senator Inhofe. Mr. Hagel, if confirmed, will you ensure that 
defense budget cuts will not hinder or harm the extraordinary care and 
support that our wounded warriors and their families receive?
    Mr. Hagel. I want to make it clear that if confirmed I will make it 
a priority to minimize the impact of sequestration on our wounded 
warriors and their families. However, sequestration provides no 
exemption for military health care funding, and across the board cuts 
to those programs are required by law if sequester takes place. If 
confirmed, I will seek to protect funding for wounded warrior care to 
the greatest extent possible, subject to those constraints.

                                 budget
    143. Senator Inhofe. Mr. Hagel, during a series of video interviews 
with the Financial Times on August 29, 2011, you were asked about the 
prospect of sequestration and its impact on DOD. When asked about the 
impact of an automatic $600 billion cut to DOD (beyond the $487 billion 
already proposed by the President in April 2011), you appear to 
disagree with Secretary Panetta's assessment that such cuts would be 
devastating. Instead you stated that you feel DOD is ``bloated'' and 
that ``the Pentagon needs to be pared down''.
    In an exchange with Senator Blunt at your confirmation hearing, my 
colleague asked you to provide some specific examples of what you were 
referring to when you identified the DOD budget as being ``bloated.'' 
During the hearing, you failed to provide any specificity, so please do 
so now of where you believe defense spending is excessive and what 
accounts and programs you believe should be cut.
    Mr. Hagel. I have never said that I support sequestration. I do not 
nor have I ever supported sequestration. I support the 2011 Budget 
Control Act. I stand by my view that inefficiency and waste exists in 
DOD that could and should be reduced or eliminated. The record shows, 
in my view, that both the Department's leadership and Congress have 
expressed similar views. In his May 2010 speech at the Eisenhower 
library, then-Secretary Gates launched an effort to cut inefficiency 
and waste in the Department that had grown up over the previous decade 
of rising budgets.
    As he noted at the time, inefficiency is not just about money. He 
cited in that speech a ``top-heavy hierarchy'' in DOD that was out of 
step with the 21st century. Following that speech, the Department began 
reducing unneeded senior executive and general officer positions to 
reduce layers of management.
    In the Department's next two budget submissions for fiscal year 
2011 and fiscal year 2012, they produced separate justification books, 
which the Committee has on file, detailing plans to cut inefficiency 
and lower-priority programs by $178 billion and then another $60 
billion, respectively. I believe many of those reductions, in areas 
such as information technology, smarter acquisition, streamlined 
management, and reorganizations, are underway but not yet fully 
realized.
    Notwithstanding these efforts by the Department, Congress was able 
to find additional savings and reduced defense spending below the level 
requested by the Department in both of these fiscal years by 
approximately $20 billion per year.

    143a. Senator Inhofe. Mr. Hagel, do you believe military resources 
should drive strategy or should strategy drive resources?
    Mr. Hagel. I believe strategy should drive our resource decisions, 
but our strategy must also be realistic and resource-informed.

    144. Senator Inhofe. Mr. Hagel, do you believe that DOD should 
pursue a National Security Strategy that assumes a relatively high 
degree of risk for our military?
    Mr. Hagel. I believe the Department has developed a strategy that 
meets the challenges of the current and future security environment 
that both minimizes risk and complies with the fiscal constraints 
imposed by the Budget Control Act (BCA). I also believe that by ending 
the wars in Iraq and Afghanistan, and rebalancing to a strategic 
posture that modernizes alliances, builds partner capacity and 
maintains a ready, agile and responsive force, we reduce the risk to 
our military.

    145. Senator Inhofe. Mr. Hagel, if it is determined that the 
reductions being proposed need to be revised and that additional 
resources are necessary to meet our national security needs, do you 
believe you would have the flexibility to advocate for a decrease in 
the $487 billion reduction to defense budgets if you determined a 
significant adverse impact to national security?
    Mr. Hagel. If confirmed, I will continue to work with OMB and 
Congress to seek the resources necessary to provide the military 
capabilities the defense of our Nation requires. However, the mechanism 
of sequestration enacted in the Budget Control Act and the lack of a 
full year appropriation are my immediate concerns as they would 
severely limit the Department's flexibility to ensure the military has 
the funds it requires to fulfill its mission.

    146. Senator Inhofe. Mr. Hagel, over the past 4 years this 
administration has pursued the systematic disarming of U.S. military 
power under the guise of defense budget cuts in order to maintain 
significantly higher levels of funding for non-security-related 
domestic programs. In a letter I sent to Secretary Panetta earlier this 
month, I reiterated that we are in full agreement that any additional 
cuts to defense spending, especially those of the magnitude of 
sequestration, would be unacceptable and will result in serious and 
lasting harm to the capabilities and readiness of our military. Do you 
agree that sequestration would have lasting harm to the capabilities 
and readiness of our military?
    Mr. Hagel. The combined impacts of a Continuing Resolution and 
Sequestration will have a devastating impact on our readiness, 
especially given that we have a shorter period of time and limited 
flexibility to manage where the reductions are taken. Based on my 
assessment to date, sequestration would harm military readiness and 
disrupt each and every investment program. Some of the more notable 
impacts of sequester would be reduced global activities, less training 
which would decrease readiness, disruption of investment programs, 
limits on military construction, and forced furloughs and hiring 
freezes for civilian workers.

    147. Senator Inhofe. Mr. Hagel, do you agree that averting 
sequestration should be our highest priority?
    Mr. Hagel. Adverting sequestration, as well as providing the 
Department a fiscal year 2013 appropriations bill, should be Congress' 
highest priority.

    148. Senator Inhofe. Mr. Hagel, do you agree that Congress and the 
administration have a shared responsibility in averting sequestration?
    Mr. Hagel. The ability to avoid sequestration and to pass a full-
year appropriations bill for DOD is within the power of Congress. It is 
my desire that Congress and the administration reach an agreement on a 
balanced package of deficit reductions that leads to detriggering of 
sequestration and regular appropriation bills.

                             cybersecurity
    149. Senator Inhofe. Mr. Hagel, in your advance policy questions 
you stated that it is ``your understanding that the Department of 
Homeland Security (DHS) has the lead for domestic cybersecurity.'' 
Cyberspace perhaps more so than any other domain is not bound and has 
little regard to geographical boundaries. When it comes to the defense 
of the Homeland from a foreign attack what role do you believe DOD 
should play?
    Mr. Hagel. DOD has the responsibility to defend, deter, and when 
directed by the President, take action to defend the United States, its 
allies, and its interests in cyberspace as in all domains. I agree that 
threats in cyberspace can cross both physical boundaries and particular 
departmental responsibilities, and, therefore, believe it is critical 
for the Department to work closely with both the public and private 
sectors. To support DOD national security responsibilities, I believe 
that the Department must maintain a close partnership with DHS.

    149a. Senator Inhofe. Do you believe DOD should be the principal 
U.S. Government agency responsible for protecting the United States 
against foreign cyber-attacks to the Homeland?
    Mr. Hagel. It is my understanding that DOD has the mission to 
defend the Nation in cyberspace and that DHS should be the lead for 
coordinating the cybersecurity of U.S. critical infrastructure. I 
support these roles and relationship.

    150. Senator Inhofe. Mr. Hagel, I understand there is some 
confusion over the role DHS would play in such an attack on the 
Homeland in cyberspace. Do you believe that DHS should have anything 
more than a supporting role to DOD in a cyberattack against the 
Homeland?
    Mr. Hagel. I understand that DOD has the mission to defend the 
Nation in cyberspace, and that this includes a close partnership with 
DHS in its role of leading efforts for the cybersecurity of U.S. 
critical infrastructure, and non-DOD unclassified government networks. 
I believe that DHS plays a vital role in securing unclassified Federal 
civilian government networks and working with owners and operators of 
critical infrastructure to secure their networks through risk 
assessment, mitigation, incident response capabilities, and sharing 
cyber threat and vulnerability information. DOD supports DHS in its 
domestic role.

    151. Senator Inhofe. Mr. Hagel, who, in your opinion, should be 
that principal agency with the responsibility of coordinating the 
defense of the Homeland from a foreign cyberattack and the response?
    Mr. Hagel. I support the current administration approach, in which 
DOD has the responsibility to defend, deter, and, when directed by the 
President, take action to defend the United States, its allies, and its 
interests in cyberspace as in all domains. I also support DOD's 
partnership with DHS in its role leading efforts for the cybersecurity 
of U.S. critical infrastructure.

    152. Senator Inhofe. Mr. Hagel, capabilities-wise, do you agree 
that DOD and the National Security Agency have the most comprehensive 
set of resources to defend the Nation from a foreign cyberattack?
    Mr. Hagel. Yes. At the same time, I believe that DOD should work 
closely with other departments and agencies that have unique 
responsibilities, capabilities, and expertise, such as DHS and the 
Federal Bureau of Investigation.

    153. Senator Inhofe. Mr. Hagel, do you agree that establishing 
bureaucracies and duplicative efforts at DHS would be unwise?
    Mr. Hagel. I agree that departments and agencies should not set up 
unnecessary bureaucracies or duplicative efforts. In the cyber domain, 
I believe that DOD and DHS should continue to team together to address 
cyber threats, understanding that each has specific roles and missions, 
and that DOD has the mission to defend the Nation in cyberspace.

    154. Senator Inhofe. Mr. Hagel, a recent Wall Street Journal 
article titled ``Banks seek U.S. Help on Iran Cybersecurity'' states 
that ``major U.S. banks are pressing for government action to block or 
squelch what Washington officials say is an intensifying Iranian 
campaign of cyberattacks against American financial institutions.'' The 
article asserts that some of the financial institutions are concerned 
by the lack of U.S. Government response arguing that the banks ``can't 
be expected to fend off attacks from a foreign government.'' According 
to the article, ``U.S. officials have been weighing options, including 
whether to retaliate against Iran.''
    What role do you believe DOD should play in events such as the 
recent/ongoing Iranian attacks on the financial sector and do you 
believe there is an offensive role DOD should be able to utilize via 
cyberspace?
    Mr. Hagel. Although I am not aware of the specific details of these 
events, DOD plays a critical role in a whole-of-government effort to 
address threats to both our national and economic security. The 
President has made clear that the United States will respond to hostile 
acts in cyberspace as we would any other threat to our country, and 
that the United States reserves the right to use all necessary means, 
including military means as a last resort, to defend our Nation and our 
interests. If confirmed, I will ensure that the Department develops the 
necessary cyber capabilities to defend and, if directed by the 
President, conduct offensive operations.

    155. Senator Inhofe. Mr. Hagel, I was concerned to read in your 
advance policy questions that you seem to believe that we are deterring 
and dissuading our adversaries in cyberspace. In a letter sent to 
Senator McCain last year by General Alexander, the Commander of U.S. 
Cyber Command, he asked a similar question to which Gen. Alexander 
simply stated ``No . . . much remains to be done across both the public 
and private sector.''
    Do you agree with General Alexander's assessment? If not, why not?
    Mr. Hagel. I do believe that the United States has successfully 
deterred major cyber attacks. However, I agree with General Alexander 
that there is much more to be done to protect the Nation from cyber 
threats. If confirmed, I am committed to continuing DOD efforts to 
strengthen the Department's cyber capabilities and support 
cybersecurity efforts across the public and private sector. One such 
opportunity would be to pass legislation that allows for increased 
information sharing on cyber threats and the development of critical 
infrastructure cybersecurity standards in partnership with the private 
sector.

    156. Senator Inhofe. Mr. Hagel, what role do you believe offensive 
cyber capabilities should play in cyber deterrence?
    Mr. Hagel. I believe that an important element of deterrence is to 
develop and maintain a wide variety of capabilities, including cyber 
capabilities, that can impose costs on a potential adversary. If 
confirmed, I will ensure that DOD provides the President with a broad 
range of military options.

    157. Senator Inhofe. Mr. Hagel, do you believe the mission to 
defend the Homeland will require both offensive and defensive cyber 
forces and tools?
    Mr. Hagel. Yes. I believe the Department must provide a wide range 
of credible capabilities in all domains, both offensive and defensive, 
to defend the Nation.

                        national missile defense
    158. Senator Inhofe. Mr. Hagel, do you still support the Missile 
Defense Act of 1999?
    Mr. Hagel. Yes, I co-sponsored the National Missile Defense Act of 
1999, and I continue to support the law.

    159. Senator Inhofe. Mr. Hagel, do you agree that protection of the 
United States from the threat of ballistic missile attack is a critical 
national security priority?
    Mr. Hagel. Yes.

    160. Senator Inhofe. Mr. Hagel, do you agree it is necessary to 
modernize and expand our national missile defense, formally known as 
the GMD system, to keep pace with the growing threat?
    Mr. Hagel. I support the continued modernization, and expansion if 
necessary, of the GMD system and the other missile defense efforts that 
can contribute to the protection of the homeland in the future.

                       missile defense in europe
    161. Senator Inhofe. Mr. Hagel, do you believe the deployment of 
SM-3 interceptors in Poland and Romania, as currently planned, is 
provocative for the Russians?
    Mr. Hagel. While the Russians have argued that the later phases of 
the European Phased Adaptive Approach (EPAA) could undermine their 
strategic deterrent, the United States has repeatedly stated that the 
EPAA is not directed at Russia and will not have the capability to 
undermine Russia's ICBM forces. I agree with this view.

    162. Senator Inhofe. Mr. Hagel, do you support President Obama's 
commitment to deploy SM-3 missiles in Romania and Poland as currently 
planned?
    Mr. Hagel. I support the President's approach to missile defense in 
Europe, including the deployment of the Aegis Ashore sites in Romania 
and Poland as currently planned. If confirmed, I will ensure the 
Department continues to support the implementation of the European 
Phased Adaptive Approach.

    163. Senator Inhofe. Mr. Hagel, do you believe the United States 
should provide legal assurances to Russia that would limit U.S. missile 
defense capabilities?
    Mr. Hagel. The President is on record as saying, and I agree, that 
the United States cannot accept any limits on its BMD systems.

    164. Senator Inhofe. Mr. Hagel, do you agree to inform this 
committee about ongoing discussions with the Russians concerning 
potential limits to U.S. missile defense capabilities or cooperation 
with Russia in missile defense?
    Mr. Hagel. If confirmed, I will keep Congress apprised as required 
by the 2013 NDAA.

                            nuclear weapons
    165. Senator Inhofe. Mr. Hagel, do you support modernization of the 
nuclear triad and the nuclear weapons complex, as per the stated intent 
of the President in his Message to the Senate on the New START treaty?
    Mr. Hagel. I support the President's commitment to a safe, secure, 
and effective nuclear deterrent as long as nuclear weapons exist. I 
believe that modernizing nuclear forces and infrastructure is critical 
and should be a national priority. I also believe that there is a 
continuing need to sustain the skilled workforce that underpins 
deterrence capabilities.

    166. Senator Inhofe. Mr. Hagel, do you agree that restoring NNSA's 
production infrastructure is necessary to allow excess warheads to be 
retired along with other potential stockpile reductions to the 
nondeployed stockpile over time?
    Mr. Hagel. I believe that modernizing the nuclear weapons 
production infrastructure is very important, and that doing so is 
necessary to reducing the stockpile hedge over time.

    167. Senator Inhofe. Mr. Hagel, do you believe it is important to 
have the capacity to surge production in the event of significant 
geopolitical surprise?
    Mr. Hagel. I believe that a modernized nuclear weapons 
infrastructure that would allow production of additional warheads is 
important to hedge against significant, unforeseen changes in the 
international security situation.

    168. Senator Inhofe. Mr. Hagel, what do you believe should be the 
proper role of DOD in determining the annual funding requests for NNSA 
Weapons Activities?
    Mr. Hagel. I understand that the Nuclear Weapons Council (NWC) 
provides a statutory forum wherein the Department of Energy's National 
Nuclear Security Administration and DOD come together to make 
programmatic and funding decisions and, as appropriate, recommendations 
for the Secretaries to coordinate requirements and expenditures. If 
confirmed, I look forward to working with the NWC and the Secretary of 
Energy to best coordinate our requirements in a fiscally responsible 
manner to continue to meet the Nation's security needs.

                        arms control compliance
    169. Senator Inhofe. Mr. Hagel, do you agree that any outstanding 
nuclear weapons treaty compliance concerns should be addressed before 
the United States pursues further nuclear arms reduction negotiations 
with Russia?
    Mr. Hagel. Compliance with legal obligations is central to the 
effectiveness of arms control treaties, and concerns about non-
compliance must be addressed. If confirmed, I will ensure that DOD 
works with the Department of State and other interagency partners in 
assessing and responding to compliance concerns. While resolution of 
such issues with Russia is clearly important, I do not believe that 
discussions of possible further nuclear arms reductions need await 
resolution of all compliance issues.

                    dod financial management system
    170. Senator Inhofe. Mr. Hagel, are you committed to modernizing 
DOD's financial management systems?
    Mr. Hagel. Yes. I understand that implementation of modern, 
integrated business systems is well underway and I will continue to 
monitor and support these efforts. They must contribute to improved 
efficiency and must also sustain the quality and fidelity of financial 
information that we need to manage with.

    171. Senator Inhofe. Mr. Hagel, if confirmed, would you emphasize 
financial management improvement and audit readiness as a top priority?
    Mr. Hagel. Improving the Department's financial management 
capability is an important priority and if confirmed, I will ensure 
that senior leaders are focused on this goal and hold them accountable.

                 budget cuts and operational readiness
    172. Senator Inhofe. Mr. Hagel, does the fiscal year 2013 defense 
budget of $525.3 billion with $88.5 in OCO funding, affect DOD's 
ability to ``respond to every contingency'' as you highlighted in your 
opening statement?
    Mr. Hagel. Yes, the Department's ability to respond to 
contingencies is directly related to the funding it receives which is 
translated into military capabilities. I believe the Department can 
implement the administration's present strategy within the budget it 
has requested. That said, if sequestration occurs, the Department would 
need to significantly revise the defense strategy and, in all 
probability, would need to make some hard choices about which of our 
current national defense capabilities we could afford to retain.

                        aging military equipment
    173. Senator Inhofe. Mr. Hagel, the Chief of Staff of the Army, and 
the Commandant of the Marine Corps have stated that they need at least 
2 years of OCO funding after withdrawal from Iraq and Afghanistan in 
order to reset their equipment. If confirmed, will you be prepared to 
continue requesting OCO funding until all equipment has been reset?
    Mr. Hagel. Yes. I believe that it will require considerable time to 
repair equipment returning from operations in Afghanistan because of 
the nature of the repairs and difficulty of removing the equipment from 
Afghanistan.

                        end strength reductions
    174. Senator Inhofe. Mr. Hagel, do the planned reductions to Army 
and Marine Corps end strengths affect DOD's ability to ``respond to 
every contingency'' as you highlighted in your opening statement?
    Mr. Hagel. Current reductions in the Army and Marine Corps are 
being carefully managed in order to balance risk with the right mix of 
capabilities necessary to fulfill all of the missions required by the 
Defense Strategic Guidance. Currently, reductions are predicated on the 
U.S. Central Command (CENTCOM) plans to continue off-ramping forces 
heading to Afghanistan. This risk we can manage. However, I am very 
concerned about the risk to the Nation given the possibility of 
sequestration and the potential for a full year Continuing Resolution. 
If not resolved, the fiscal situation could have significant impact on 
the ability of the Department to do what is required by the Defense 
Strategic Guidance. It is not the planned cuts to the Army and Marine 
Corps that cause significant risk, but rather the ones that we may be 
forced to make due to the uncertain fiscal environment.

                       defense budget priorities
    175. Senator Inhofe. Mr. Hagel, during your testimony you stated 
that, if confirmed, you will confine the dollars we are going to spend 
in the defense budget for defense purposes, in support of the 
warfighter. Do we also have your assurance that you will submit a 
budget that reflects this commitment?
    Mr. Hagel. I believe a fundamental foundation of any defense budget 
submission is to provide the best support we can to our warfighters and 
ensure their capabilities, readiness and agility are sustained. If 
confirmed, I will uphold this commitment.

                            industrial base
    176. Senator Inhofe. Mr. Hagel, what is your definition of the 
industrial base?
    Mr. Hagel. The defense industrial base is a diverse and dynamic set 
of companies that provide both products and services, directly and 
indirectly, to national security agencies, including the military. The 
defense industrial base includes companies of all shapes and sizes from 
some of the world's largest public companies to small businesses.

    177. Senator Inhofe. Mr. Hagel, if confirmed, what will be your 
approach to preserving the industrial base?
    Mr. Hagel. If confirmed, I will ensure the Department continually 
assesses the health of the industrial base. I will work closely with 
industry and Congress and will be prepared to act to preserve needed 
skills and manufacturing capabilities, as resources permit.

                           acquisition reform
    178. Senator Inhofe. Mr. Hagel, it seems that every time we have a 
change in administrations or the Secretaries of Defense, another 
acquisition study is commissioned, usually ignoring the 300 plus 
studies that have already produced a report. If confirmed, what will be 
your approach to ensuring the acquisition system produces affordable 
capabilities that are responsive to the needs of the warfighter?
    Mr. Hagel. I understand the Department has undertaken a series of 
``Better Buying Power'' initiatives as a broadbased collection of 
comprehensive, detailed, initiatives to improve acquisition practices 
and ensure the Department is procuring affordable, technically 
achievable capabilities on cost and schedule. If confirmed, I will 
examine these initiatives to ensure that they adequately address the 
problems with the Department's acquisition system.

                              green agenda
    179. Senator Inhofe. Mr. Hagel, following up on your testimony, you 
stated in response to questions posed by the committee on your 
priorities for defense investments in energy technologies that ``my 
broad priorities for defense energy investments will be those that: 
increase military capabilities, provide more mission success, and lower 
total cost.''
    With the budget cuts DOD is facing, how will your priorities impact 
DOD's current plan to invest $9 billion over the next 5 years on energy 
technology investments and an additional $4 billion for renewable 
energy facility projects?
    Mr. Hagel. I have not yet reviewed the Department's budget related 
to energy technologies. If confirmed, I will ensure that investments in 
the operational energy area drive enhanced military capabilities, 
facilitate mission effectiveness, and lower costs.

    180. Senator Inhofe. Mr. Hagel, if confirmed, what criteria would 
you establish to focus investments on your priorities?
    Mr. Hagel. If confirmed, my main criteria will be to ensure that 
DOD investments enhance readiness and warfighting effectiveness and 
increase our national security.

    181. Senator Inhofe. Mr. Hagel, do you believe that defense funds 
should be used to develop a commercial biofuels refinery?
    Mr. Hagel. The Nation's long-term energy security would benefit 
from a competitive, domestic renewable fuels industry; as a major 
consumer of liquid fuels, the Department would benefit, as well. That 
said, I am not yet in a position to comment on the trade-offs between 
the value of this investment and the other priorities of the 
Department.

    182. Senator Inhofe. Mr. Hagel, do you believe that critical 
operations and maintenance funds intended for the training, equipping, 
and readiness of our Armed Forces should be used to pay for alternate 
fuels that exceed the cost of traditional fossil fuels?
    Mr. Hagel. I believe the Department's primary operational energy 
goal should be to ensure operational military readiness. I understand 
that most of the Department's investments in alternate fuels since 2003 
have been for the purpose of ensuring that military platforms can 
operate on a wide range of fuels, providing useful military flexibility 
if and when they become commercially available and cost competitive 
with petroleum products.

    183. Senator Inhofe. Mr. Hagel, will you pledge to work with 
Congress to ensure that all investments and purchases of renewable 
energy technologies and alternate fuels are supported by specific 
congressional authorizations for that purpose?
    Mr. Hagel. If confirmed, I will ensure that the Department's energy 
investments comply with congressional authorizations.

    184. Senator Inhofe. Mr. Hagel, according to a recent report by a 
major oil and gas company, the United States will be energy self-
sufficient in 2030. Other reports by respected organizations have 
agreed. Do you agree that the United States could become energy 
independent in the next 20 years?
    Mr. Hagel. I am greatly encouraged by the recent developments in 
the U.S. energy sector and the benefits for our economy.

    185. Senator Inhofe. Mr. Hagel, how do you foresee this impacting 
U.S. foreign policy?
    Mr. Hagel. Reducing the Nation's dependence on foreign oil is an 
important national security imperative. That said, because oil prices 
are set on a global market and will be for the foreseeable future, the 
stability of global oil markets will continue to be important for the 
U.S. economy.

                          u.s. africa command
    186. Senator Inhofe. Mr. Hagel, the outgoing Secretary of Defense 
has been a strong supporter of U.S. Africa Command (AFRICOM) and 
critical engagement and operations ongoing throughout the continent of 
Africa. AFRICOM has less than 5,000 boots on the African continent to 
cover 54 countries and over 12 million square miles. Its forces are 
completely shared with U.S. European Command (EUCOM). How will the 
United States be able to adequately support AFRICOM operations given 
the cuts in EUCOM personnel, coupled with additional cuts in DOD 
funding?
    Mr. Hagel. I believe that our low-cost, small-footprint presence 
and operations in Africa are appropriate to promoting our interests and 
addressing threats to us and our partners. U.S. forces are managed 
globally to address ongoing needs anywhere, so forces that operate in 
and around Africa extend beyond those assigned to EUCOM. Moreover, 
since the attacks on our diplomatic facilities in Benghazi, I 
understand that the Department has undergone a rigorous evaluation of 
our military posture across the region, to including assessing EUCOM 
and AFRICOM force posture. If confirmed, I would continue to ensure 
that we appropriately manage the allocation of U.S. military forces 
across the globe, including in Africa, to ensure we are best 
positioning ourselves on any given day for contingencies that may 
arise.

    187. Senator Inhofe. Mr. Hagel, the President's new strategy calls 
for a ``rebalancing'' of resources to the Asia Pacific theater, 
maintaining focus on the Middle East, and ``evolving'' force posture in 
Europe. Do you believe the President's new Asia-focused strategy puts 
our operations at high risk for Africa and South America?
    Mr. Hagel. I agree with the Defense Department's new strategy and 
move to rebalance to the Asia-Pacific region while maintaining focus on 
challenges in the Middle East. The strategy also makes it clear that we 
will still have interests we need to protect in other regions of the 
world and that we will do so through continued partnership, rotational 
presence, and smaller foot-print activities. If confirmed, I will make 
sure that we are always mindful of how we address threats, manage risk, 
and promote our interests in all parts of the world , and what role the 
U.S. military and DOD play in that as part of an overall U.S. effort. 
However, we may have to seek different approaches to pursuing our 
interests in these other regions if the size of our overall defense 
budget declines further.

    188. Senator Inhofe. Mr. Hagel, the headquarters for AFRICOM is in 
Stuttgart, Germany. Would you consider moving AFRICOM out of Germany 
and somewhere in Africa?
    Mr. Hagel. I understand the Department has just completed a study 
that compares the costs and benefits of moving the AFRICOM 
headquarters. In the end Secretary Panetta considered both cost and 
operational factors and decided to keep the headquarters in Stuttgart, 
Germany. When assessing possible relocation to the African continent 
the Department considered the difficulties in determining a 
representative country on such a diverse continent, diplomatic 
challenges, high costs of infrastructure, security concerns and 
mobility and access challenges. It was decided that a move to the 
African continent was not feasible at this time.

                 budget cuts and operational readiness
    189. Senator Inhofe. Mr. Hagel, you stated in responses to 
questions posed by the committee in regard to the Joint Chief's 
concerns about a hollow force that ``the concerns the Joint Chiefs have 
expressed about readiness come from a variety of factors, including the 
challenges of recovering from 10 years of operational stress, of 
transitioning to a broader range of operations, and of doing all of 
this in the face of fiscal austerity and budget uncertainty.'' How do 
you plan to monitor risk and the potential mismatch between constrained 
resources and demands of operational plans?
    Mr. Hagel. I am deeply impressed by the caliber and capabilities of 
our military forces. It is vitally important that they be ready to 
respond to the Nation's needs, and I am concerned that further budget 
cuts will negatively affect readiness. If confirmed, I will get regular 
updates by the Joint Chiefs on where we must devote the Department's 
attention and resources to ensure the readiness of the force.

    190. Senator Inhofe. Mr. Hagel, do you believe there currently 
exists a mismatch between readiness requirements and military strategy 
when assessing the resources available? Please explain.
    Mr. Hagel. Maintaining ready forces is a priority. If confirmed, I 
will work with the Joint Chiefs to better understand the basis of their 
assessment and how we can most effectively address the readiness 
challenges our military faces.
    My sense is that the concerns the Joint Chiefs have expressed about 
readiness come from a variety of factors, including the challenges of 
recovering from 10 years of operational stress, of transitioning to a 
broader range of operations, and of doing all of this in the face of 
fiscal austerity and budget uncertainty. If confirmed, I will carefully 
monitor how all of these factors are posing risks to readiness and will 
work closely with the military and civilian leadership of the 
Department to mitigate those risks to the greatest extent possible.

    191. Senator Inhofe. Mr. Hagel, as to the mitigation of risk of a 
hollow force, do you believe the President will provide you the 
discretion to request higher defense budgets than are currently 
proposed by the administration over the next 10 years?
    Mr. Hagel. I will always give the President my most honest and 
informed opinion about all necessary requirements for America's 
national security.
    I understand the administration has developed Strategic Guidance 
consistent with the funding limits of the budget control act. Any 
changes to those limits, such as sequestration, will cause a dramatic 
change in the force and require a different strategy or different 
resources. Additionally, unexpected demands for forces will likely 
result in a request for additional funding, as they always have.

         geographic risk posed by the revised military strategy
    192. Senator Inhofe. Mr. Hagel, in your response to the committee 
on a question regarding the revised military strategy announced by the 
President in the wake of the administration's decision to cut defense 
budgets by $487 billion over 10 years, you state: ``By emphasizing the 
Asia-Pacific while also focusing on the Middle East, rebalancing will 
necessarily accept risk in other areas given the resource-constrained 
environment.'' How do you believe the President's military strategy is 
taking risks in regions other than Asia and the Middle East?
    Mr. Hagel. By prioritizing resources for Asia and the Middle East, 
the current defense strategy accepts some risk in terms of the 
military's ability to address security challenges elsewhere. I believe 
this risk is manageable at the levels of defense spending provided for 
in the Budget Control Act. Regardless of where U.S. military forces may 
be positioned or stationed, one of the key advantages of our military 
is that we can bring to bear effective capabilities where needed to 
address threats to our interests. If confirmed, I would work with the 
Chairman of the Joint Chiefs of Staff and the Services to ensure that 
readiness is one of our top priorities, so that our forces are ready to 
respond to the full range of contingencies that may threaten our key 
interests.

    193. Senator Inhofe. Mr. Hagel, what specifically are the risks for 
Africa and South America?
    Mr. Hagel. In Africa, partner states accept a greater share of the 
burden to counter the growing capacity of violent extremist 
organizations and ensure regional stability. While we believe this 
African-led approach manages the threats to U.S. interests, the limited 
defense capacities of most African states and the modest investments in 
the African security sector are a source of risk. In South America, 
transnational criminal organizations undermine peace and security 
across the region and into the United States. As in Africa, partner 
states in South America will accept a greater share of the burden to 
address transnational criminal organizations.

    194. Senator Inhofe. Mr. Hagel, why do you believe this risk is 
necessary?
    Mr. Hagel. Not all problems are best met with military tools. Many 
of our national security objectives around the world, and notably in 
Africa and South America, are best secured through diplomacy and 
economic development. I believe DOD's current strategic approach 
balances the risk of overwhelming these two regions with U.S. military 
presence with the need to be ready to respond to crises that may emerge 
there, using globally agile forces.

    195. Senator Inhofe. Mr. Hagel, what do you believe was lacking in 
our military strategy for Asia that required a rebalancing?
    Mr. Hagel. As the United States draws down from more than a decade 
of war in Afghanistan, we face an inflection point allowing for a 
transition from fighting today's wars to preparing for tomorrow's 
challenges. The President has been clear that U.S. economic and 
security interests are inextricably tied to the Asia-Pacific. The 
emerging economic and political dynamism in the Asia-Pacific requires 
strong and continuous U.S. commitment and the rebalance is a whole-of-
government effort to renew and deepen U.S. engagement throughout the 
region. The rebalance will inform the allocation of activities and 
resources to the Asia-Pacific, where the Department will contribute to 
peace and prosperity in the region. If confirmed, I will continue the 
Department's efforts and activities to seek greater engagement with 
allies and partners to build capacity for security cooperation, build 
mutual trust, understanding, and norms among countries in the region.

    196. Senator Inhofe. Mr. Hagel, what does rebalancing mean for the 
U.S. military effort in the Asia-Pacific region in terms of force 
structure changes, additional or modified military capabilities, and 
defense budget modifications?
    Mr. Hagel. If confirmed, I will focus on strengthening our 
relationships, building the capacity of key allies and partners, as 
well as maintaining the United States' ability to deter conflict and 
respond to any potential contingencies in the Asia-Pacific region. The 
rebalance renews emphasis on air and naval forces while maintaining 
distributed ground forces. The rebalance also requires the Department 
to develop new capabilities in order to maintain a technological edge, 
our freedom of action, and ability to project power in the region. I 
would work closely with the Joint Chiefs of Staff, Services, and Office 
of the Secretary of Defense leadership to assess any additional changes 
in resources, force structure, equipment, and training.

    197. Senator Inhofe. Mr. Hagel, the January 2012 Defense Strategic 
Guidance says that ``our posture in Europe must evolve.'' What is your 
assessment of the specific programs and strategic efforts that DOD is 
executing, or has planned, to evolve our posture in Europe?
    Mr. Hagel. I support the Department's current approach to posture 
in Europe and its emphasis on maintaining our Article 5 commitments to 
Allied security and promoting enhanced capacity and interoperability 
for coalition operations. For instance, I strongly support ongoing 
efforts related to the European Phased Adaptive Approach, the 
establishment of an aviation detachment in Poland, and enhanced 
training and exercises with European allies and partners through 
rotational deployments from the United States. All of these efforts 
introduce more modern capabilities appropriate for future challenges 
and demonstrate our commitment to NATO and the strength of the 
Alliance.

    198. Senator Inhofe. Mr. Hagel, how do you believe our evolving 
force posture in Europe will affect our commitment to NATO?
    Mr. Hagel. The Department's evolving defense posture in Europe 
focuses on enhancing interoperability and training and introducing 
modern capabilities more appropriate for future challenges. These 
evolutions demonstrate our commitment to NATO and the strength of the 
Alliance. Regardless of the rebalance, NATO is already adapting to meet 
new and emerging threats, to acquire the core enabling capabilities 
needed to respond to the full range of contingencies, and to better 
align U.S. and NATO training and education efforts in order to solidify 
and maintain the gains realized from having operated together in 
Afghanistan. As Secretary Panetta has said, ``Europe is our security 
partner of choice for military operations and diplomacy around the 
world.'' Our investment in Europe is, therefore, crucial.

                         iran ministry support
    199. Senator Inhofe. Mr. Hagel, Iran's Foreign Ministry was quoted 
as being hopeful your appointment would improve relations between 
Tehran and the United States ``We hope that practical changes will be 
created in the U.S. foreign policy and the U.S. officials' approach 
will change to respect the Nations' rights. We hope that the U.S. 
officials will favor peace instead of warmongering and recognize the 
rights of nations instead of interfering in the countries' internal 
affairs.''
    You stated in October 2009 that ``President Obama's approach to 
achieving a Middle East peace is connected to other vital regional and 
global issues--like helping forge an emerging Arab consensus on peace, 
combating terrorism, and future relationships with Iran and Syria. 
These issues are all in the long-term interests of Israel, the U.S., 
the Middle East, and the world.''
    In describing the President's approach, what specifically were you 
referring to regarding future relationships with Iran and Syria?
    Mr. Hagel. While I cannot speak to the motivations of the Iranian 
Foreign Ministry spokesperson behind making those statements, there 
should be no doubt that I fully support and--if confirmed--will 
faithfully execute the President's multi-vector strategy towards Iran. 
This strategy has included tough-minded diplomacy, crippling sanctions, 
and serious contingency planning with the objective of preventing Iran 
from acquiring a nuclear weapon.
    My comments in 2009 reflected my support for the President's use of 
diplomacy as an effective tool of statecraft. This approach allowed the 
United States to test the intentions of the regimes in Iran and Syria, 
expose them before the world, and when they failed to seize the 
opportunities presented to them, build a global coalition against them.

    200. Senator Inhofe. Mr. Hagel, how would these relationships with 
these two terrorist regimes be in the long-term interests of Israel and 
the United States?
    Mr. Hagel. Much has changed since 2009 in Iran and Syria. With that 
in mind, I believe that only after there is a change in regime in Syria 
and serious changes in the regime's behavior in Tehran, can we 
conceivably think about long-term relationships with these two 
countries that could be beneficial to the interests of the United 
States and the State of Israel. At the same time, I think the United 
States should continue to reach out to the people of Syria and Iran--as 
the best long-term investment for our and Israel's interests. Both 
societies are tremendously important to the stability of a region that 
is of great interest to the United States.

    201. Senator Inhofe. Mr. Hagel, how would you assess the success of 
the President's approach to date in the region?
    Mr. Hagel. I think the President's approach to the region has had 
some great success during the first term. President Obama responsibly 
drew down our presence in Iraq, crippled al Qaeda, isolated and 
weakened Iran, strongly supported the security of the State of Israel, 
and focused on transforming our relationship with peoples of the 
region, while advancing our core interests. That said, much remains to 
be done during the second term, and--if confirmed--I look forward to 
advancing our interests in the vitally important region of the Middle 
East.

                              north korea
    202. Senator Inhofe. Mr. Hagel, you wrote that ``Kim Jon Il's 
government is a genuinely rogue regime whose nuclear ambitions and 
capacity for mischief have been more or less contained, though 
imperfectly, through the U.N. and a mature diplomatic structure that 
includes the United States, Russia, China, Japan and South Korea.''
    Given North Korea's ballistic missile launch in December and recent 
threats to conduct further nuclear testing, do you still think that the 
diplomatic structure is effectively containing North Korean nuclear 
ambitions?
    Mr. Hagel. North Korea's December Taepo Dong II missile launch and 
recent threats to conduct a third nuclear test underscore the growing 
North Korean threat to international peace and security. U.S. 
diplomatic efforts following the December missile launch, particularly 
with China, resulted in U.N. Security Council Resolution 2087, which 
affirms the international community's opposition to North Korea's 
provocations. The tightened sanctions in the resolution will help 
impede the growth of North Korea's weapons of mass destruction program. 
If confirmed, I will continue to ensure our military provides the 
deterrence and defense necessary to protect our allies and our 
interests. This posture is also the best way to create conditions where 
diplomacy has the best possible prospects to succeed.

    203. Senator Inhofe. Mr. Hagel, do you see the future force 
structure of U.S. forces in Korea decreasing below the current size?
    Mr. Hagel. To secure peace and stability on the Korean Peninsula 
and in Northeast Asia, it is important that the United States and the 
Republic of Korea (ROK) maintain a robust combined defense posture. If 
confirmed, I will work with ROK leadership to ensure that the United 
States maintains an appropriately sized and ready force to respond to 
evolving threats in the region.

    204. Senator Inhofe. Mr. Hagel, do you think any capabilities need 
to be added to our force structure in the Asia-Pacific theater to 
ensure regional stability in light of increased North Korean 
belligerence?
    Mr. Hagel. If confirmed, I will maintain the U.S. commitment to the 
defense of the ROK using globally available U.S. forces and 
capabilities that can be deployed to augment the combined defense in 
case of crisis. If confirmed, I would ensure that we have the 
capabilities necessary to deter, and, if necessary, defeat, North 
Korean aggression.

                                 taiwan
    205. Senator Inhofe. Mr. Hagel, tensions in the Asia-Pacific have 
increased significantly due to more aggressive posturing of China in 
places like Scarborough Reef and the Senkaku Islands as China continues 
to pursue increased military capabilities. Do you fully support the 
Taiwan Relations Act of 1979?
    Mr. Hagel. I fully support the Taiwan Relations Act. In my view, 
the increasing complexity and sophistication of the military threat to 
Taiwan from China increasingly means that Taiwan must devote greater 
attention to asymmetric concepts and innovative technologies to 
maximize Taiwan's strengths and advantages. If confirmed, I would work 
closely with Congress, the Commander of U.S. Pacific Command, and our 
interagency partners to ensure the continued effective implementation 
of all of the relevant provisions of the Taiwan Relations Act.

    206. Senator Inhofe. Mr. Hagel, do you support the sale of F-16C/Ds 
to Taiwan, why or why not?
    Mr. Hagel. With respect to advanced fighter sales, I believe that 
we should make available to Taiwan those military capabilities that 
would allow the Taiwan Armed Forces to execute its missions effectively 
not only for today, but well into the future. If confirmed, I will look 
at what specific capabilities those are--or should be--in light of the 
security situation in the Taiwan Strait and the evolving military 
capabilities on the mainland. In addition, if confirmed, I will work 
with the Commander of U.S. Pacific Command to identify appropriate 
military training and exercise opportunities that will advance U.S. 
interests, enhance Taiwan's defense capabilities, and contribute to 
peace and stability in the Taiwan Strait.

    207. Senator Inhofe. Mr. Hagel, would you support the sale of F-35s 
to Taiwan?
    Mr. Hagel. See answer to Question #206.

    208. Senator Inhofe. Mr. Hagel, how would you strengthen the U.S. 
security relations with Taiwan?
    Mr. Hagel. I agree that the Taiwan Relations Act has contributed to 
peace and stability in the region for over 30 years. In my view, the 
increasing complexity and sophistication of the military threat to 
Taiwan from China means that Taiwan must devote greater attention to 
asymmetric concepts and innovative technologies to maximize Taiwan's 
strengths and advantages. If confirmed, I would work closely with 
Congress, the Commander, PACOM, and our interagency partners to ensure 
the continued effective implementation of all of the relevant 
provisions of the Taiwan Relations Act. I believe that we should make 
available to Taiwan military capabilities that would allow the Taiwan 
Armed Forces to execute its missions effectively not only for today, 
but well into the future. If confirmed, I will look at what specific 
capabilities those are--or should be--in light of the security 
situation in the Taiwan Strait and the evolving military capabilities 
on the mainland. In addition, if confirmed, I will work with the 
Commander, PACOM to identify appropriate military training and exercise 
opportunities that will advance U.S. interests, enhance Taiwan's 
defense capabilities, and contribute to peace and stability in the 
Taiwan Strait.

    209. Senator Inhofe. Mr. Hagel, does the United States need to 
maintain a two carrier presence in the Pacific at all times and can 
this be done if sequestration goes into effect?
    Mr. Hagel. If confirmed, I will work with the Secretary of the 
Navy, Joint Chiefs of Staff, and U.S. Pacific Command to ensure that we 
allocate our naval resources at the level of presence necessary to 
support our strategic goals, striking a balance between carrier 
presence in the Pacific Ocean and other regions. The current budget 
uncertainty, combined with ongoing high demand in the Gulf, has made 
sustaining two carriers in the Pacific challenging; further significant 
cuts in the defense budget would make it, extraordinarily difficult 
especially if preserving other U.S. interests--particularly Gulf 
presence.

          support for israeli security and regional stability
    210. Senator Inhofe. Mr. Hagel, given the high demand and low 
density of our missile defense assets globally, do you support the 
allocation of a TPY-2 radar and a BMD-capable ship to the defense of 
Israel?
    Mr. Hagel. I support strong missile defense cooperation with 
Israel, including the deployment of the U.S. TPY-2 radar and 
operational cooperation and support, including ship-based. In addition, 
the United States and Israel have a long history of cooperative 
research and development on missile defense. If confirmed, I will 
continue to support a robust missile defense cooperative relationship 
with Israel.

                                  iran
    211. Senator Inhofe. Mr. Hagel, will a two-carrier presence in the 
Gulf be sustainable given expected severe defense budget cuts?
    Mr. Hagel. I believe that it is critical that the U.S. military 
maintain a robust presence in the region to counter Iran, reassure our 
partners, and build partner capacity. Our carrier presence is a key 
element of this presence. If confirmed, I will work with the combatant 
commanders to revalidate our posture and ensure it best addresses the 
threats, challenges, and opportunities in the region to preserve all 
options for the President while balancing other national security 
needs. Current budget uncertainty and further significant cuts in the 
defense budget would make sustaining this critical Gulf presence, and 
preserving other U.S. interests, extraordinarily difficult.

    212. Senator Inhofe. Mr. Hagel, do we have enough missile defense 
assets in the Middle East to adequately protect our partners and allies 
from an Iranian ballistic missile attack?
    Mr. Hagel. I believe the phased adaptive approach takes the 
appropriate steps to protect our interests in the region. If confirmed, 
I will make it a priority to assess the adequacy of our missile defense 
posture in the Middle East to protect our deployed forces, allies, and 
partners from attack, and will seek adjustments as appropriate. I will 
also work to strengthen our cooperative relationships in the Middle 
East, and encourage our partners to continue to make investments in 
missile defense.

                 listening to commanders on the ground
    213. Senator Inhofe. Mr. Hagel, our commanders on the ground in 
both Iraq and Afghanistan asked for a surge to achieve national 
security objectives - and you disagreed with both of them.
    How much weight will you give your combat commanders on the ground 
when you make future decisions or recommendations to the President?
    Mr. Hagel. If confirmed, I would of course place great weight on 
the assessments and recommendations of combatant commanders and theater 
commanders on how best to achieve our military and national security 
objectives in their theater. If confirmed, it would be my 
responsibility to weigh their recommendations against global risk and 
force posture, and to offer that judgment to the President alongside 
theirs. If confirmed, I will honor the principles, enshrined in law, 
that allow the Chairman and the Joint Chiefs of Staff to voice their 
best military advice to the President. I will continue to foster an 
environment that welcomes critical thinking and diversity of views from 
theater commanders, combatant commanders, and the Joint Chiefs of 
Staff, as better and wiser strategic choices will result.

                              russia reset
    214. Senator Inhofe. Mr. Hagel, the administration has made major 
efforts towards resetting our relationship with Russia. However, on 
major issues such as Syria, Russia remains uncooperative. What is your 
assessment of the reset with Russia with respect to military-to-
military relations?
    Mr. Hagel. Although we do not see eye-to-eye with Russia on every 
issue, there are many areas of cooperation that have been positive, 
including transit into and out of Afghanistan, support on sanctions 
against Iran, and increased transparency on military reform and 
modernization.

    215. Senator Inhofe. Mr. Hagel, what areas do you see for future 
increased military cooperation with Russia?
    Mr. Hagel. The enhanced bilateral military relationship we have 
developed with Russia under the reset is worthwhile. If confirmed, I 
would seek to continue it, while considering what adjustments may be 
needed. My understanding is that DOD has been pursuing several areas of 
increased cooperation with Russia, with a focus on developing 
transparency by providing a reliable and predictable channel of 
communications between our militaries. If confirmed, I would seek to 
increase U.S. consultations with Russia on its internal defense reform 
efforts, such as modern military recruitment, compensation and benefits 
systems, and developing noncommissioned officers. Assisting the Russian 
military to enact reforms in these areas will help make it a more 
confident, secure and stable organization. If confirmed, I would also 
seek to pursue cooperation with Russia on strategic issues critical to 
both of our Nations, such as counterterrorism and missile defense.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                              afghanistan
    216. Senator McCain. Mr. Hagel, in an interview with the Financial 
Times on August 29, 2011, you are quoted as saying, ``I disagreed with 
President Obama, his decision to surge in Afghanistan, as I did with 
President Bush on the surge in Iraq.'' Do you unequivocally stand by 
your statement that you disagreed with President Obama's decision to 
surge troops in Afghanistan?
    Mr. Hagel. I did disagree with President Obama's decision to surge 
troops to Afghanistan. Notwithstanding any past differences in view, if 
confirmed, I will work with our military commanders and Joint Chiefs to 
ensure that President Obama has the best possible advice in developing 
and implementing a strategy that best protects our national interests.

    217. Senator McCain. Mr. Hagel, do you advocate the full withdrawal 
of U.S. forces by the end of 2014?
    Mr. Hagel. I support the President's plan to transition full 
security responsibility to the Afghan National Security Forces by the 
end of 2014, and to retain an enduring commitment in the future. As the 
President has stated, a residual force after 2014 would focus on two 
primary missions: to deny safe haven to al Qaeda and its affiliates; 
and to train, advise, and assist the Afghan forces so they can maintain 
their own security. I further support the President's position that any 
residual U.S. force would have to be at the invitation of the Afghan 
Government and would need to be guaranteed certain legal protections, 
which will be negotiated under the Bilateral Security Agreement.

                                 syria
    218. Senator McCain. Mr. Hagel, more than 60,000 Syrians have been 
killed in some 22 months of conflict between the rebels and the Assad 
regime. You are quoted in an August 29, 2011, interview with the 
Financial Times, as saying, ``I think Syria, the outcome there has far 
more important consequences for America's national interests than 
Libya.'' Should the United States provide at least the same level of 
support to anti-Assad forces as we provided to anti-Qaddafi forces?
    Mr. Hagel. I continue to believe that the United States has 
significant national security stakes in the outcome in Syria. I believe 
that the steps taken by the administration to date, including 
political, diplomatic and economic pressure, as well as assisting the 
unarmed opposition, have been appropriate. If confirmed I will support 
the President's ongoing reassessment of the continuously changing 
dynamics on the ground in Syria, to determine what additional steps may 
be appropriate.

    219. Senator McCain. Mr. Hagel, are U.S. forces capable of 
executing, without operational support from international partners, no 
fly zones in Syria?
    Mr. Hagel. While I have not been briefed in detail on U.S. 
capabilities for such a mission, I am confident that the U.S. military 
could enforce a no-fly zone over Syria. However, because Syria has an 
advanced air defense network, I understand that such a mission could 
involve a significant number of and risk to U.S. forces.

    220. Senator McCain. Mr. Hagel, do you believe the United States 
should deny Assad his use of air power?
    Mr. Hagel. The President has said Assad must go, and a democratic 
political transition should remain our goal. If confirmed, I will 
support the current focus on weakening the Assad regime through 
political, diplomatic, and economic pressure, as well as assisting the 
unarmed opposition. Regarding any additional options, military and non-
military, if confirmed, I will support the President's continuing 
reassessment of what additional steps may be appropriate.

    221. Senator McCain. Mr. Hagel, do you believe the United States 
should provide arms, intelligence, or other military support to Syrian 
rebels?
    Mr. Hagel. I do not believe that providing lethal support to the 
armed opposition at this time would improve the terrible situation in 
Syria; however, this question should continue to be re-evaluated over 
time. The Syrian people are in urgent need of assistance during this 
difficult period, and the United States is helping to address those 
basic needs by providing medical assistance, humanitarian assistance, 
and political support on the international stage.

                                  iraq
    222. Senator McCain. Mr. Hagel, do you regard the 2007 Iraq surge 
as a mistake?
    Mr. Hagel. When former President Bush announced his decision to 
surge troops to Iraq in 2007, I was against it. I thought the Bush 
administration had not defined a clear end state for the war in Iraq, 
and under these circumstances I did not believe that adding more U.S. 
troops was worth the likely cost in American lives. It is now clear 
that a combination of steps including the surge, improved counter-
terrorism techniques, and the Anbar Awakening, contributed to reducing 
violence in Iraq. The cost of the surge in American lives was almost 
1,200 dead and thousands wounded. What is still not clear, however, is 
what role the surge played relative to the other steps that we took, or 
what would have happened if we had not undertaken the surge; those are 
questions for historians.

    223. Senator McCain. Mr. Hagel, could the other factors that 
contributed to the stability of Iraq circa 2007, such as the Anbar 
Awakening, have succeeded without the surge?
    Mr. Hagel. The Anbar Awakening was an important development--along 
with the Shia militant ceasefire--that was a result of the decision of 
the Iraqi people to take back their country from extremist forces. Many 
of the Anbar Awakening tribes fought alongside our troops, and they 
should be commended for their efforts. Over 100,000 young Sunis were 
paid by the United States between $350 and $500 per month of helping 
us. Our troops benefited from the Awakening and in turn the Awakening 
forces were further bolstered by the support offered by our troops. But 
ultimately, it is difficult to make a judgment on the causal 
relationship between the surge and the Anbar Awakening. Again, this 
will be a question best reserved for history to make an ultimate 
judgment.

    224. Senator McCain. Mr. Hagel, you advocated the complete 
withdrawal of all U.S. forces from Iraq by 2011, rather than 
negotiating an agreement for an enduring presence of U.S. forces. The 
President ultimately did exactly what you recommended--reportedly 
against the advice of his military leaders. Do you believe that Iraq is 
more stable and better off today as a result?
    Mr. Hagel. Yes, I fully supported the withdrawal of all U.S. combat 
forces from Iraq by December 2011 in accordance with the November 2008 
U.S.-Iraq Security Agreement. It was the right decision and it gave the 
Iraqis the chance to take full ownership and responsibility for their 
country. Iraq is better off today because of it. The drawdown has 
allowed us to chart a new path in our strategic partnership with a 
sovereign Iraq based on mutual interests and mutual respect.
    While Iraq is a better place today, it is clear that Iraq has a 
long way to go to move beyond a history of violence and instability. 
Iraq continues to face security challenges, but our focus must be on 
the future. A normalized relationship between our two countries, based 
on mutual respect and mutual interests, is the best way to advance 
U.S., Iraqi, and regional interests. If confirmed, I will continue 
Secretary Panetta's work to strengthen our military-to-military 
relationship with Iraq, and further its re-integration into the region.

                               dod budget
    225. Senator McCain. Mr. Hagel, if additional resources are 
necessary to meet our national security needs, would you advocate for a 
restoration of some of the $487 billion the President plans to cut from 
future defense budgets?
    Mr. Hagel. If confirmed, I will work with the President, OMB, and 
Congress to provide the military capability necessary to defend our 
Nation. I recognize that the Budget Control Act of 2011 requires that 
to be done within constrained resources. I believe we can defend the 
Nation within those limits. If confirmed, I would expect to consult 
with the President and Congress as circumstances change. However, I do 
believe that if significant multi-year reductions in funding take place 
(such as those required by sequestration), the Department would need to 
revise the defense strategy.

    226. Mr. Hagel, do you agree with former Secretary of Defense 
Robert Gates that a 10 percent, or approximately $50 billion, cut to 
defense spending in 1 year ``operationally would be catastrophic''?
    Mr. Hagel. As both Secretaries Gates and Panetta repeatedly stated, 
sequestration--both the size and the arbitrary manner of these cuts--
would be devastating to the Department. It would harm military 
readiness and disrupt each and every investment program. Based on my 
assessment to date, I share their concern. I urge Congress to eliminate 
the sequester threat permanently and pass a balanced deficit-reduction 
plan.

                    force structure and end strength
    227. Senator McCain. Mr. Hagel, do you support the President's plan 
to reduce military force structure over the next few years, including 
reducing Army end strength to approximately 490,000 soldiers by 2017?
    Mr. Hagel. If confirmed, I will be committed to maintaining the 
best Army in the world--capable and ready--an Army that will support 
the mission requirements associated with our defense strategy. In the 
future our Army will not be sized for large-scale, long-duration 
stability operations, but instead have the agility to respond where the 
Nation needs it. I support an Army that is sized according to the 
defense strategy and the mission requirements that support that 
strategy.

    228. Senator McCain. Mr. Hagel, given our poor track record of 
predicting future requirements for ground forces, what do you believe 
to be the justification for reducing the size of the Army and Marine 
Corps so dramatically?
    Mr. Hagel. Our force structure and end strength levels should 
support the overall national security and defense strategies. The 
defense strategy places emphasis on a smaller, leaner force that is 
agile, flexible, and ready to deploy quickly; not a force that is sized 
for large, protracted stability operations. You are right that we have 
a poor track record in predicting the future. But we have shown that we 
can rapidly grow our ground forces, if necessary. We also plan to 
preserve readiness in our Reserve Forces.

    229. Senator McCain. Mr. Hagel, the President has exempted military 
personnel accounts from cuts related to budget sequestration. Do you 
agree that cutting training and equipment funding without proportional 
cuts to military personnel accounts will lead to a hollow force?
    Mr. Hagel. In general, I agree that we must maintain the right 
balance of end-strength, modernization, and training to guard against a 
hollow force. However, in the case of the blunt instrument of 
sequestration, I support the President's exemption of military 
personnel accounts in fiscal year 2013 due to the fact that across-the-
board reductions would be inadvisable for the morale of the force and 
not cost-effective.

    230. Senator McCain. Mr. Hagel, in the context of overall budget 
reductions, not specifically budget sequestration, would you recommend 
curtailing civilian personnel by amounts proportional to cuts made to 
the military personnel accounts?
    Mr. Hagel. I understand that Secretary Panetta has directed an 
internal scrub to see where savings can be made in civilian personnel 
accounts. To me this is a prudent review, and something the Department 
should do continuously. However, it is not clear that a reduction of a 
certain percentage of uniform personnel can be met with a corresponding 
reduction in civilian personnel. The two serve different functions, and 
in some cases, for example cyber efforts, we foresee a growth in 
civilian personnel. But if confirmed, this is an area I intend to look 
at closely.

    231. Senator McCain. Mr. Hagel, do you intend to comply with 
section 955 of the NDAA for Fiscal Year 2013, which directs savings in 
civilian personnel and service contractor workforces of DOD?
    Mr. Hagel. If I am confirmed, I will ensure the Department complies 
with section 955.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                      gulf region military posture
    232. Senator Chambliss. Mr. Hagel, in hindsight it appears your 
assessment was wrong on both the effectiveness of the Iraq surge and on 
our method of withdrawal. Some argue that our departure from Iraq and 
our subsequent disengagement have opened the door to greater Iranian 
influence in Iraq and strengthened Teheran's position in the Middle 
East. What alterations, if any, are necessary to our military force 
posture in the Gulf Region to deter Iranian regional ambitions and 
support international diplomatic efforts to stop Iran's effort to 
acquire nuclear weapons?
    Mr. Hagel. In my view, our military posture in the Middle East 
region remains strong and is a critical component of the President's 
multi-vector strategy to ensure Iran does not acquire a nuclear weapon. 
If confirmed, I will continue to work with the Joint Chiefs and the 
CENTCOM Commander to ensure that the Department is fully prepared and 
adequately postured for any military contingencies in this critically 
important region, particularly with respect to Iran and the President's 
firm commitment to prevent it from acquiring a nuclear weapon.

                       military readiness depots
    233. Senator Chambliss. Mr. Hagel, Georgia is home to two of our 
critical defense depots--Warner Robins Air Logistics Complex and Marine 
Corps Logistics Base-Albany. One sequestration scenario directs the 
Military Services to cancel vital 3rd and 4th quarter depot-level 
maintenance activities. This will have an immediate and lasting impact 
on military readiness and make it difficult to recover a force that has 
seen combat for the better part of 2 decades. Furthermore, thousands of 
highly-skilled workers would lose their jobs; and thousands of hours 
would be lost for flight time, drive time, and repairs that would 
ensure our military's equipment is ready when the Nation calls upon 
them. Describe in detail how you will ensure that depots accomplish 
their mission and not lose the continuity that is vital to the success 
of our force readiness if sequestration occurs.
    Mr. Hagel. The work done by the skilled workforce at our defense 
depots is critical to the Defense Department. I agree with Secretary 
Panetta that the effects of sequestration will be devastating and will 
lead to a decline in military readiness. If confirmed, I will work with 
the Secretaries of the Military Departments, Joint Chiefs, and Military 
Services to sustain readiness as best we can. However, this will be 
extremely difficult given the impact of sequestration, especially when 
combined with the effects of a year-long Continuing Resolution. If 
sequestration occurs, it will likely not be possible to keep our depots 
fully operating, and this will impact our future readiness.

                      general/flag officer reform
    234. Senator Chambliss. Mr. Hagel, historically, during military 
draw-downs, enlisted personnel percentages take the brunt of the 
attrition while a disproportionate amount of general and flag officers 
remain in place. It seems we have an excessive number of general 
officers in the ranks. If confirmed, will you take a closer look at the 
number of general/flag officer authorizations in the military and the 
size of their support staffs?
    Mr. Hagel. I understand that the Track Four Efficiency Study, 
initiated by Secretary Gates and continued by Secretary Panetta, 
identified both Service and joint general and flag officer positions 
for elimination, realignment, or reduction. Execution of these 
modifications is planned to continue over the next 2 years.
    If confirmed, I would support continued efforts to ensure we 
maintain the appropriate level of leadership across our joint force, 
seeking efficiencies as mission and force structure changes allow.

                      dod financial accountability
    235. Senator Chambliss. Mr. Hagel, in the current fiscal 
environment it is imperative that we maintain proper financial 
accountability in DOD. DOD is required to have an auditable financial 
statement by 2017, an objective that Secretary Panetta accelerated to 
2014. What specific steps would you take for DOD to reach this goal by 
that date?
    Mr. Hagel. I agree financial management improvement is an important 
priority and support the Department's current plan to have the 
budgetary statement ready for audit by 2014 and the full set of 
statements ready by 2017. If confirmed, I intend to review the 
Department's progress with my senior leadership team on a regular basis 
and work through them to remove any institutional barriers to achieving 
this goal.

             post-2014 afghan bilateral security agreement
    236. Senator Chambliss. Mr. Hagel, under the strategic partnership 
agreement signed by the United States and Afghanistan in May 2012, both 
countries are obligated to negotiate a bilateral security agreement 
within 1 year. The talks will set conditions for U.S. forces in 
Afghanistan after 2014 as part of a train, advise, and assist mission. 
Oversight is key for this process to be successful. We owe it to our 
military forces to have an organized, methodical plan in order to not 
squander the incredible effort expended by the United States in 
Afghanistan. Will you ensure that Congress is involved in the 
development process with the bilateral security agreement so that the 
administration is not planning in a potentially disastrous vacuum?
    Mr. Hagel. I agree on the importance of the Bilateral Security 
Agreement (BSA) for setting the parameters for our forces in 
Afghanistan after 2014 and with the need to maintain regular 
communication with Congress as the BSA negotiations proceed. If 
confirmed, I will support the administration's sustained engagement 
with Congress throughout the Bilateral Security Agreement negotiation 
process.

    237. Senator Chambliss. Mr. Hagel, from your viewpoint, what 
conditions need to be set in a post-2014 Afghanistan with U.S. and 
coalition involvement for the Afghanistan Government to continue to be 
successful?
    Mr. Hagel. I believe that improvements in security conditions, 
enabled by continued development of the Afghan National Security 
Forces, will continue to be critical. Good governance, including 
sustained efforts to end corruption, is also important to ensure that 
security gains result in sustainable Afghan self-reliance and 
governance. Regional peace and deepened cooperation between Afghanistan 
and its neighbors will also be important for long-term success. If 
confirmed, I will monitor conditions in and around Afghanistan closely 
and will continue to assess progress in consultation with commanders on 
the ground and the Joint Chiefs, to ensure that we are helping to set 
the conditions for continued success in Afghanistan beyond 2014.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                         use of military force
    238. Senator Wicker. Mr. Hagel, in your responses to the advance 
policy questions, you state that one of the key lessons learned from 
the Iraq war is the need to think more carefully before using military 
force, especially regarding the need to plan for all phases of 
operations before beginning a preemptive conflict.
    You have stated repeatedly that the United States should keep all 
options on the table, to include the use of preemptive military force, 
to prevent Iran from obtaining nuclear weapons. Some military theorists 
argue that such an attack, even if successful, has the potential to 
result in a variety of reactions from Iran, including direct attacks on 
U.S. and allied military forces, attempts to interrupt the flow of 
commerce through the Strait of Hormuz, and the use of Iranian special 
operations forces and proxies to conduct destabilizing operations in 
vulnerable regional countries. Arguably, the second and third order 
effects of such an attack would be far more widespread than those 
resulting from the U.S. invasion of Iraq in 2003.
    You also noted in your answers to the advance policy questions that 
you do not feel knowledgeable enough about how the U.S. military has 
implemented the lessons learned in Iraq and Afghanistan to make 
recommendations on additional changes. Why do you believe an attack on 
Iran is now a viable option, whereas in 2006, you felt differently?
    Mr. Hagel. I am fully committed to the President's policy of 
preventing Iran from obtaining a nuclear weapon, and believe all 
options should be on the table to achieve that goal. A military attack 
on Iran would most likely have significant consequences, as you have 
described. But as I've also said, the military option should be the 
last option considered. However, a nuclear-armed Iran would have far-
reaching and unacceptable consequences on regional stability, and on 
the security of the United States.

    239. Senator Wicker. Mr. Hagel, do you feel the U.S. military is 
adequately prepared to deal with the repercussions from a strike 
against Iranian nuclear facilities? If not, what changes would need to 
be implemented?
    Mr. Hagel. While I do not currently have access to the information 
needed to answer this question, I have great confidence that General 
Mattis, the Joint Chiefs, and Secretary Panetta have ensured that the 
U.S. military is prepared to deal with any repercussions from a strike 
against Iranian nuclear facilities. If confirmed, I will work with the 
CENTCOM Commander to refine planning as necessary over time, to ensure 
that our forces remain ready to take any actions the President directs 
and to defend themselves and the United States.

    240. Senator Wicker. Mr. Hagel, how would you engage regional 
partners to limit the potential destabilizing effects of a strike on 
Iranian nuclear facilities?
    Mr. Hagel. If confirmed, I will continue to promote and advance the 
Department's military-to-military and defense relations with our key 
partners in the region. These relationships are critical to advance 
U.S. strategic interests, including preventing Iran from acquiring a 
nuclear weapon, supporting the security of the State of Israel, and 
building the capacity of partner nations to meet common challenges and 
address future contingencies, if required.

    241. Senator Wicker. Mr. Hagel, do you believe you possess the 
requisite knowledge about the state of the U.S. military and our allies 
and that you are ready now, given the current state of affairs with 
Iran, North Korea, and China, to effectively advise the President on 
the employment of U.S. military forces towards achieving U.S. strategic 
objectives?
    Mr. Hagel. Yes. If confirmed, advising the President regarding the 
employment of military forces will be my most important duty. I believe 
I currently have the judgment and experience necessary to advise the 
President on such matters and have a clear understanding of the role of 
our military and alliances in achieving national security objectives. 
If confirmed, I will ensure that my first priority and responsibility 
is to match this prior experience with deeper knowledge of the current 
plans and capabilities of our military.

                       u.s. shipbuilding industry
    242. Senator Wicker. Mr. Hagel, if confirmed, would you agree to 
work closely with this committee and with this Congress in addressing 
the urgent need to increase our shipbuilding rates?
    Mr. Hagel. Yes.

    243. Senator Wicker. Mr. Hagel, if confirmed, will you remain 
committed to ensuring that the vessels we build for our sailors and 
marines are the finest this Nation can produce and that you will never 
agree to procuring vessels that do not meet the current military 
classifications for warships?
    Mr. Hagel. If confirmed, I am committed to ensuring the Navy's 
fleet is appropriately sized and possesses the capabilities necessary 
to fulfill its role in defending U.S. interests both in peace and 
wartime. Recognizing the challenges faced within the Department of Navy 
to build and maintain an affordable and balanced fleet, I am committed 
to ensuring that survivability shall be addressed on all new surface 
ships, combat systems and equipment designs, overhauls, conversions, 
and modernizations in order that the design is provided a balance of 
survivability performance, risk, and cost within program objectives.

    244. Senator Wicker. Mr. Hagel, if confirmed, will you agree to 
analyze all avenues of cost reduction in shipbuilding, including multi-
year procurements, block buys of material for multiple ships, and level 
loading the funding profiles to allow shipbuilders to optimize design 
and material procurement prior to the start of construction?
    Mr. Hagel. Yes.

    245. Senator Wicker. Mr. Hagel, can you provide a rationale for the 
Defense Logistics Agency's (DLA) move toward a proposed noncommercial 
model?
    Mr. Hagel. I don't have insight into the specifics of what the DLA 
proposed model is; however, it is my understanding that the DLA is 
looking at ways to strengthen its relationships with suppliers to 
mitigate contract risks. If confirmed, I will be able to look into the 
details of the specific objectives and actions.

    246. Senator Wicker. Mr. Hagel, what additional oversight would 
such a model provide to ensure the prevention of waste, fraud, and 
abuse?
    Mr. Hagel. At this time I don't have insight into the DLA model. 
However I believe it is important that we have transparent contracting 
practices that reduce risk and prevent fraud, waste, and abuse.

                    taiwan and u.s.-china relations
    247. Senator Wicker. Mr. Hagel, during an official visit to China 
in September 2012, Secretary of Defense Leon Panetta extended an 
invitation to his Chinese counterpart, General Liang Guanglie on the 
People's Liberation Army's (PLA) participation in the biennial RIMPAC 
in 2014. RIMPAC is the world's largest international maritime warfare 
exercise, which in 2012 involved over 40 ships and submarines, more 
than 200 aircraft, and 25,000 personnel from more than 20 countries 
from the Pan Pacific region.
    The Taiwan Strait has long been a potential flashpoint in the 
region. Taiwan, one of America's important strategic allies in the 
region, has been constantly under the threat of a growing PLA. If the 
PLA is to be invited to RIMPAC, I believe we should consider involving 
Taiwan as well. Would you consider inviting Taiwan's navy to 
participate in RIMPAC?
    Mr. Hagel. The United States is firm in its commitment to Taiwan's 
self-defense needs under the Taiwan Relations Act. That relationship 
includes defense exchanges and other interactions consistent with our 
unofficial relationship and as provided for in the Taiwan Relations 
Act. If confirmed, I will work to identify appropriate exchanges and 
interactions to assist Taiwan's defense capabilities, and contribute to 
peace and stability in the Taiwan Strait.

    248. Senator Wicker. Mr. Hagel, the 1979 Taiwan Relations Act and 
the Six Assurances of 1982 have contributed to the peace and stability 
of the Asia-Pacific region for the past 3 decades. With the military 
balance--including air superiority--gradually shifting in China's 
favor, what are your plans to implement the security commitment the 
United States has for Taiwan under this framework?
    Mr. Hagel. In my view, the increasing complexity and sophistication 
of the military threat to Taiwan from China means that Taiwan must 
devote greater attention to asymmetric concepts and innovative 
technologies to maximize Taiwan's strengths and advantages. If 
confirmed, I would work closely with Congress, throughout DOD, and with 
our interagency partners to ensure the continued effective 
implementation of all of the relevant provisions of the Taiwan 
Relations Act.

    249. Senator Wicker. Mr. Hagel, as Taiwan is likely to retire some 
of its older fighter aircraft in the next 5 to 10 years, do you believe 
that sales of advanced aircraft and submarines are an important next 
step in this commitment?
    Mr. Hagel. I believe that we should make available to Taiwan those 
defense articles and defense services which enable Taiwan to maintain a 
sufficient self-defense capability, today and into the future. If 
confirmed, I will look at what specific capabilities those are--or 
should be--in light of the security situation in the Taiwan Strait and 
the evolving military capabilities on the mainland.

                         export control reform
    250. Senator Wicker. Mr. Hagel, during his tenure as Secretary of 
Defense, Robert Gates championed export control reform. Specifically, 
he called for streamlining the foreign military sales, release, and 
disclosure processes. It is vital that our partners and allies have 
more certainty of timelines for delivery of critical defense articles 
and services; however, this is not always the case when our processes 
get bogged down. Is this something you will also champion if confirmed 
as Secretary of Defense?
    Mr. Hagel. I fully support the reform efforts because I believe 
they are absolutely necessary to meet 21st century national security 
challenges. Secretary Gates played a key role in setting the 
administration's export control reform objectives: a single list, a 
single licensing agency, a single primary enforcement coordination 
agency, and a single U.S. Government-wide information technology 
licensing system. The administration has made progress in this reform 
effort, but the work continues. DOD has been fully engaged in revising 
the U.S. Munitions List and I understand that it plans to continue to 
focus on completing this important work with our interagency partners 
to produce a list that is more transparent and predictable for 
government and industry and which focuses on protecting the most 
important technologies.
    I also fully support ongoing efforts within the Department to 
streamline and improve U.S. technology security and foreign disclosure 
processes so that decisions are made in a timely fashion and enable us 
to focus on the protection of the technologies that are most important, 
while providing important capabilities to our allies and partners. 
Finally, if confirmed, I would support implementation of the steps that 
the Department has taken to continue to improve the Foreign Military 
Sales process.

                          energy certification
    251. Senator Wicker. Mr. Hagel, section 2830 of the Military 
Construction Authorization Act for fiscal year 2012 requires DOD to 
submit to Congress a report on the cost effectiveness of certain green 
building standards. Part of the report by DOD found that the adoption 
of Leadership in Energy and Environmental Design certifications by 
certain departments of DOD is not the most cost effective practice for 
energy and water savings. As Secretary of Defense, what policies would 
you implement to ensure that DOD's green building policies meet the 
military's primary missions of energy and water savings and do not 
arbitrarily discriminate against American products such as domestic 
wood?
    Mr. Hagel. While I am not completely familiar with the different 
green building standards that are available, I do think we need to 
adhere to the general philosophy of minimizing life-cycle costs and 
incorporating features in building construction that result in reduced 
operating costs and lower utility bills. I will support policies to 
this effect. I will not support policies that arbitrarily discriminate 
against American products.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                   medium extended air defense system
    252. Senator Ayotte. Mr. Hagel, section 221 of the NDAA for Fiscal 
Year 2013 prohibits the use of any funding for Medium Extended Air 
Defense System (MEADS). Are you aware of this provision?
    Mr. Hagel. Yes.

    253. Senator Ayotte. Mr. Hagel, if confirmed, will you ensure that 
DOD fully complies with this law?
    Mr. Hagel. If confirmed, I will ensure that the Department fully 
complies with this law.

    254. Senator Ayotte. Mr. Hagel, how much fiscal year 2012 MEADS 
funding remains unobligated and how much has been obligated/expended 
for MEADS under the terms of the Continuing Resolution?
    Mr. Hagel. It is my understanding that of the $390 million in the 
U.S. fiscal year 2012 funding provided to the NATO management office 
for MEADS, a total of $335 million has been fully obligated to fund 
data analysis, archiving the technology and design, capturing 
performance results, formal contract closeout; and if necessary for 
termination liabilities for contracts and/or subcontracts. $55 million 
of fiscal year 2012 funding was also provided to the U.S. Army for 
management and oversight of sensitive technologies in MEADS. The 
Department is consulting with our partners, Germany and Italy, in order 
to complete as much of the remaining design and development effort as 
possible while allowing for contract closeout. I understand that $210 
million of the total fiscal year 2012 funds has been expended as of 
February 1, 2013. No fiscal year 2013 funds are authorized and none 
have been obligated or expended under the CR.

    255. Senator Ayotte. Mr. Hagel, for what purpose were these funds 
obligated?
    Mr. Hagel. See answer to Question #254.

 joint land attack cruise missile defense elevated netted sensor system
    256. Senator Ayotte. Mr. Hagel, can you provide an update on the 
deployment status of Joint Land Attack Cruise Missile Defense Elevated 
Netted Sensor System (JLENS)?
    Mr. Hagel. I understand JLENS is still in development, and that the 
Department recently completed a study on JLENS location and operational 
use. It is my understanding a JLENS deployment site was selected and 
planning is underway for preparing the site. If confirmed, I will 
review the status of these preparations with the Secretary of the Army 
and the Commander of U.S. Northern Command.

    257. Senator Ayotte. Mr. Hagel, if confirmed, will you commit to 
ensuring that JLENS will be deployed in a timely fashion?
    Mr. Hagel. See answer to Question #256.

    258. Senator Ayotte. Mr. Hagel, what combatant commands have a 
validated requirement for JLENS or have expressed an interest in JLENS?
    Mr. Hagel. It is my understanding that because of the unique 
capabilities of JLENS to detect a range of air threats, CENTCOM, U.S. 
Southern Command, U.S. Pacific Command, and U.S. Northern Command have 
expressed interest in this capability.

                       f-35 joint strike fighter
    259. Senator Ayotte. Mr. Hagel, what is your assessment of China 
and Russia's development of fifth generation fighters?
    Mr. Hagel. I have not reviewed the breadth of the programs in 
detail, but both China and Russia are pursuing advanced fighter 
aircraft. We are examining ways to respond to these efforts to upgrade 
their capabilities.

    260. Senator Ayotte. Mr. Hagel, do you believe the F-35 JSF is 
necessary in an increasingly contested operating environment?
    Mr. Hagel. My view is we cannot let any nation achieve parity with 
the United States in our ability to control the air. I understand the 
F-35 will bring advanced capability to the warfighters in a contested 
environment and ensure the United States can act in our national 
interest around the globe.

    261. Senator Ayotte. Mr. Hagel, if confirmed, will you continue the 
development and procurement of the fifth generation JSF, including the 
Marine Corps variant?
    Mr. Hagel. If confirmed, I will review the F-35 program, to include 
the Marine Corps variant, to ensure the aircraft are delivered with the 
capability we need and at a cost we can afford.

                       ballistic missile threats
    262. Senator Ayotte. Mr. Hagel, analysts have estimated that Iran 
may be capable of striking the CONUS with a ballistic missile by 2015. 
Do you agree with this assessment?
    Mr. Hagel. It is clear that Iran continues to pursue longer-range 
missiles and develop technology that could allow Iran to deploy an ICBM 
in the future. I believe that U.S. missile defenses must be prepared to 
defend the United States today and in the future against any potential 
threat posed by countries like Iran and North Korea.

    263. Senator Ayotte. Mr. Hagel, in light of this analysis, Congress 
included section 221 in the NDAA for Fiscal Year 2013. This section 
requires the Secretary of Defense to conduct a study that evaluates 
three possible additional locations in the United States, including two 
on the east coast, for future deployment of an interceptor to protect 
the Homeland against missile threats from countries such as North Korea 
and Iran. Are you aware of this reporting requirement?
    Mr. Hagel. Yes.

    264. Senator Ayotte. Mr. Hagel, if confirmed, do you pledge to have 
the results of this study delivered to Congress within the timeframe 
outlined in section 221, as required by law?
    Mr. Hagel. If confirmed, I will work to ensure that the study is 
delivered on time and that Congress remains informed about the 
Department's decisions about how to best protect the U.S. Homeland from 
this threat.

                         submarine requirements
    265. Senator Ayotte. Mr. Hagel, do you believe the Virginia payload 
module will mitigate some of the anticipated gap in undersea strike 
volume?
    Mr. Hagel. Yes, although I understand that the cost to include this 
capability in the Virginia-class is a challenge to available 
shipbuilding resources.

    266. Senator Ayotte. Mr. Hagel, what percent of combatant commander 
attack submarine requirements were met by the Navy in 2012?
    Mr. Hagel. I have been informed that the Navy has met approximately 
60 percent of the combatant commanders' total attack submarine 
requirements and 100 percent of the Secretary of Defense-approved 
Global Force Management Allocation Plan adjudicated requirement for 
Navy support since 2010. The Global Force Management process allows 
Navy to meet the combatant commanders' highest priority needs as 
determined by the Secretary of Defense and Chairman of the Joint Chiefs 
of Staff.

    267. Senator Ayotte. Mr. Hagel, do you support Congress' intent to 
build two Virginia-class submarines in 2014?
    Mr. Hagel. Submarines are critically important to our strategy and 
future; therefore, resources permitting, I would support plans to build 
two Virginia-class submarines in 2014.

                           electronic warfare
    268. Senator Ayotte. Mr. Hagel, what is your view on the future of 
electronic warfare/electronic attack?
    Mr. Hagel. I believe the Electronic Warfare/Electronic Attack (EW/
EA) will play an increasingly important role in future military 
operations. It is both an enabler of U.S. operations and a capability 
that potential adversaries will exploit to counter the longstanding 
U.S. technological edge in weapon systems. Potential adversaries are 
pursuing more advanced battlefield systems, including EW/EA, to deny 
U.S. power projection capabilities and curtail our ability to maneuver, 
conduct precision strikes, and communicate effectively in a conflict 
scenario. Continued U.S. investment in EW/EA will be critical to 
ensuring that the United States can achieve its operational objectives 
in a timely manner and with a minimum of losses; EW/EA systems will 
also contribute to the deterrent effect that highly capable U.S. forces 
exert on potential adversaries.

    269. Senator Ayotte. Mr. Hagel, do you believe it still plays a 
vital role in our national security?
    Mr. Hagel. See answer to Question #268.

                         u.s.-russian relations
    270. Senator Ayotte. Mr. Hagel, do you agree that the United States 
should not initiate negotiations with Russia for a new arms treaty 
unless and until we can confirm that Russia is fully honoring existing 
arms treaties with the United States?
    Mr. Hagel. Compliance with legal obligations is central to the 
effectiveness of arms control treaties, and concerns about non-
compliance must be addressed. If confirmed, I will ensure that DOD 
works with the Department of State and other interagency partners in 
assessing and responding to any compliance concerns. While resolution 
of such issues with Russia is clearly important, I do not believe that 
discussions of possible further nuclear arms reductions need await 
resolution of all compliance issues.

    271. Senator Ayotte. Mr. Hagel, is Russia fully honoring all 
existing arms treaties with the United States?
    Mr. Hagel. I do not believe that the Russian Federation is fully 
honoring all of its obligations under existing arms control treaties. 
For example, Russia ceased implementing the Conventional Armed Forces 
in Europe Treaty in 2007.

                         patriot missile system
    272. Senator Ayotte. Mr. Hagel, section 226 of the NDAA for Fiscal 
Year 2013 requires the Secretary of the Army to submit a prioritized 
plan to Congress for the modernization of the Patriot missile system. 
Are you aware of this requirement?
    Mr. Hagel. Yes.

    273. Senator Ayotte. Mr. Hagel, if confirmed, will you ensure that 
the Army delivers this plan within the timeframe outlined in section 
226, as required by law?
    Mr. Hagel. If confirmed, I will work with the Secretary of the Army 
to ensure the Army delivers this plan as required by law.

                          overseas cemeteries
    274. Senator Ayotte. Mr. Hagel, are you aware that section 2857 in 
the NDAA for Fiscal Year 2013 requires DOD to designate a Federal or 
private agency to maintain base cemeteries before closing overseas 
military bases?
    Mr. Hagel. Yes.

    275. Senator Ayotte. Mr. Hagel, if confirmed, will you ensure that 
this provision is adhered to, as required by law?
    Mr. Hagel. If confirmed, I will carry out the direction given to 
the Department in the NDAA for Fiscal Year 2013.

                         mental health services
    276. Senator Ayotte. Mr. Hagel, are you aware that section 206 in 
the NDAA for Fiscal Year 2013 authorizes a DOD program to enhance DOD's 
research, treatment, education, and outreach initiatives focused on 
addressing the mental health needs of members of the National Guard and 
Reserve members?
    Mr. Hagel. Yes.

    277. Senator Ayotte. Mr. Hagel, do you share my belief that DOD 
must address these needs?
    Mr. Hagel. Yes. I am deeply concerned about the mental health 
issues faced by our servicemembers and their families. If confirmed, I 
will be committed to providing the highest quality of mental health 
care and will comply with the provision in the NDAA for Fiscal Year 
2013.

                          budget auditability
    278. Senator Ayotte. Mr. Hagel, section 1005 in the NDAA for Fiscal 
Year 2013 that requires DOD to complete a full statement of budget 
resources by 2014, with the ultimate goal to be full auditability by 
2017. Are you aware of this requirement?
    Mr. Hagel. Yes. I understand that those commitments in our current 
plans have been included in the NDAA for Fiscal Year 2013.

    279. Senator Ayotte. Mr. Hagel, if confirmed, do you commit to 
meeting this statutory requirement and to doing all that you can to 
promote good financial stewardship and financial transparency at DOD?
    Mr. Hagel. I agree financial management improvement is an important 
priority and support the Department's current plan to have the 
budgetary statement ready for audit by 2014 and the full set of 
statements ready by 2017. If confirmed, I will be committed to 
achieving this goal and will ensure that senior leaders remain focused 
on this goal and hold them accountable.

                       women in selective service
    280. Mr. Hagel, would you support requiring women to register for 
the Selective Service? Please explain your response.
    Mr. Hagel. I strongly believe all Americans should be able to serve 
in our Armed Forces to their maximum abilities. The Selective Service 
Act is administered by an agency outside of DOD. If I am confirmed, I 
will look forward to participating in any interagency consideration of 
selective service registration that may occur. We currently have an 
All-Volunteer Force that is the finest military in the world. I do not 
want to suggest that it would be necessary or advisable to restore the 
draft.

                     prostheses for servicemembers
    281. Senator Ayotte. Mr. Hagel, are the prostheses that our 
servicemembers are receiving after a severe injury the most advanced 
available on the U.S. market?
    Mr. Hagel. The care and support provided to our wounded, ill, and 
injured are key focus areas for the Department. I understand that the 
Department supports, along with the Department of Veterans Affairs, an 
Extremity Injury and Amputation Center of Excellence and that the 
standard and quality of care regarding prosthetics meets or exceeds 
what is provided in the private sector. I also understand that the 
Department supports a variety of research to ensure cutting edge 
technology is incorporated into addressing the issues for 
servicemembers with extremity amputations. This includes advanced 
research into tissue engineering and transplantation. If confirmed, I 
will continue to support these collective efforts to improve care.

    282. Senator Ayotte. Mr. Hagel, if not, what actions are being 
taken to gain access to these prostheses for our servicemembers?
    Mr. Hagel. See answer to Question #281.

                 national guard youth challenge program
    283. Senator Ayotte. Mr. Hagel, the National Guard Youth Challenge 
Program (NGYCP) works to intervene in and reclaim the lives of at-risk 
youth by enhancing their skills, education, and self-discipline. The 
program has distinguished itself as an effective intervention in the 
lives of troubled young men and women. Over 110,000 students have 
graduated from 33 programs nationwide and a majority of these graduates 
earn their GED and are actively employed following graduation.
    The outstanding success enjoyed by the NGYCP is largely a result of 
the leadership and unique advantages the National Guard brings to the 
program. The program has also been successful because of the National 
Guard's emphasis on quality training for the staff.
    A 2012 RAND Corporation study highlighted the value of continued 
investment in the NGYCP. According to the report, the program earned 
$2.66 in social benefit from students graduating and becoming 
productive citizens for every $1 spent. Yet, only two cents of that 
original investment was spent on training the program staff.
    Based on the critical role training has played in this essential 
program's success, if confirmed, do you commit to examining funding for 
the NGYCP staff training to determine how it has changed over time and 
whether it is sufficient to maintain the quality of the program?
    Mr. Hagel. I understand that training plays a large part in the 
success of the 100,000 cadets who have successfully completed this 
program. The Department continues to review ways in which to further 
improve the NGYCP's performance nationwide, including staff training. 
If confirmed, I will work closely with Reserve component leaders to 
evaluate funding for training and other resources.

                           guard and reserves
    284. Senator Ayotte. Mr. Hagel, what is your view of the 
appropriate role of the Chief of the National Guard Bureau as a member 
of the Joint Chiefs of Staff?
    Mr. Hagel. The Chief of the National Guard Bureau serves as a full 
member of the Joint Chiefs of Staff and as the principal advisor to the 
Secretary of Defense, through the Chairman of the Joint Chiefs of 
Staff, on matters involving non-Federalized National Guard forces.

    285. Senator Ayotte. Mr. Hagel, what is your assessment of the 
Reserve and how it will fit into this new strategy of smaller, more 
lethal forces rotating into and out of many locations of strategic 
interest?
    Mr. Hagel. The Reserve components have served with distinction over 
more than a decade of war and continue to be a relevant and cost 
effective part of the Total Force. In a time of declining budgets and 
complex contingencies, I believe that the Department will continue to 
call on both Active and Reserve components to accomplish the domestic 
and overseas requirements of the new strategy. We are still in the 
process of finding the proper Active component/Reserve component mix 
that will most effectively accomplish our new strategy in a constrained 
fiscal environment.

    286. Senator Ayotte. Mr. Hagel, what is your understanding of the 
appropriate size and makeup of the Reserve components in light of the 
current defense strategy and our constrained defense budget?
    Mr. Hagel. The Services each have different requirements for their 
Reserve Force in their role as force providers. The Service internal 
force management processes will continue to refine the size and 
capabilities of each Reserve component to accommodate changes to the 
defense strategy and reduced budget.

    287. Senator Ayotte. Mr. Hagel, what is your assessment of advances 
made in improving Reserve and Guard component mobilization and 
demobilization procedures, and in what areas do problems still exist?
    Mr. Hagel. The Department has made great improvements to the 
mobilization and demobilization procedures over the past decade. Over 
850,000 Reserve and National Guard members have been effectively 
mobilized to support contingency and support operations. If confirmed, 
I would expect the Services to continue to review procedures in order 
to keep faith with our Reserve component members, their families, and 
civilian employers and make necessary adjustments as needs are 
identified.

    288. Senator Ayotte. Mr. Hagel, what do you consider to be the most 
significant enduring challenges to the enabling of an operational 
reserve aimed at ensuring Reserve component and Guard readiness for 
future mobilization requirements?
    Mr. Hagel. The Reserve components currently serve in an operational 
capacity-available, trained, and equipped for predictable routine 
deployments. With the projected defense budget, the most significant 
enduring challenge will be sufficient funding to sustain the 
operational experience of the Reserve components gained over the past 
decade of utilization.

    289. Senator Ayotte. Mr. Hagel, do you see a need to modify current 
statutory authorities for the mobilization of members of the National 
Guard and Reserves or to further enhance their ability to perform 
various national security missions?
    Mr. Hagel. At the present time I believe that appropriate 
authorities are in place to access the National Guard and Reserves 
across their full spectrum of mission assignments.

    290. Senator Ayotte. Mr. Hagel, when will dwell time objectives be 
met for the Reserve components?
    Mr. Hagel. I understand the vast majority of dwell time goals for 
the Reserve components are currently being met. As we continue the 
draw-down in Afghanistan these numbers should continue to improve and 
it is expected that dwell time objectives will be fully met during the 
last stages of operations there.

    291. Senator Ayotte. Mr. Hagel, what effect would an inability to 
meet dwell time objectives have on your decision to implement the 
planned end strength reductions?
    Mr. Hagel. The ability to meet dwell time objectives will be one of 
the many factors taken into account when determining proper end 
strength requirements to meet our emerging strategy. Meeting dwell time 
objectives is an important factor in keeping faith with our All-
Volunteer Force and their families but cannot be the sole factor when 
considering planned end strength requirements.

    292. Senator Ayotte. Mr. Hagel, what is your understanding and 
assessment of the current size and structure of the Army's Reserve 
component?
    Mr. Hagel. The Army Reserve component is currently organized with 
350,200 soldiers in the Army National Guard and 205,000 soldiers in the 
Army Reserve. Any changes to the size or force structure capabilities 
for the Army Reserve components will be analyzed within the Total Force 
requirements of the Army and will reflect the projected changes in 
budget and defense strategy.

    293. Senator Ayotte. Mr. Hagel, if confirmed, what size or force 
structure changes, if any, would you propose for either the Army 
Reserve or the Army National Guard?
    Mr. Hagel. See answer to Question #292.

                         involuntary separation
    294. Senator Ayotte. Mr. Hagel, are you aware of section 525 in the 
NDAA for Fiscal Year 2013 conference report regarding reports on 
involuntary separation of members of the Armed Forces?
    Mr. Hagel. Yes.

    295. Senator Ayotte. Mr. Hagel, if confirmed, will you comply with 
this law?
    Mr. Hagel. If confirmed, I will make certain the Department 
complies with the provisions of NDAA for Fiscal Year 2013.

                            size of the navy
    296. Senator Ayotte. Mr. Hagel, are you aware of section 1015 of 
the NDAA for Fiscal Year 2013 conference report related to the size of 
the Navy?
    Mr. Hagel. Yes, I am aware of the reporting requirement in the NDAA 
for Fiscal Year 2013 related to the size of the Navy. My understanding 
is that the Navy has complied with the law and submitted the report to 
Congress on 1 February 2013. The report was submitted as an 
unclassified document, and additional information about the Force 
Structure Assessment was also submitted in a classified document.

    297. Senator Ayotte. Mr. Hagel, if confirmed, will you comply with 
this law?
    Mr. Hagel. See answer to Question #296.

                           global zero report
    298. Senator Ayotte. Mr. Hagel, what specific portions of the May 
2012 Global Zero report that you authored do you believe should not be 
implemented?
    Mr. Hagel. In the Global Zero report we took a longer term view of 
what might be possible under different circumstances, and the report's 
illustrative reductions to nuclear forces were just that--intended to 
provide a stimulus to national debate about how many nuclear weapons 
are enough and to illustrate a possible pathway forward. If confirmed, 
I will focus on implementing the recommendations of the 2010 NPR, while 
also considering what additional steps may be appropriate, and will 
consult with Congress on the way forward.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                                 israel
    299. Senator Graham. Mr. Hagel, you were one of four Senators not 
to sign a bipartisan letter (dated October 12, 2000, circulated by 
Senate Majority Leader Trent Lott and Senator Tom Daschle) to President 
Clinton expressing the Senate's solidarity with the State of Israel, at 
a time when both Palestine Liberation Organization (PLO) Chairman 
Arafat and the Palestinian Authority failed to restrain or comment on 
violence by Palestinians in violation of the peace process. If you had 
a chance to reconsider your decision, would you now choose to sign the 
letter?
    Mr. Hagel. With respect to this specific October 2000 letter, I 
wholeheartedly agreed with the objectives at the time--expressing 
solidarity with Israel at a time of crisis--as I do today. Yet, as the 
AIPAC Press release of October 13, 2000 states, I was unable to be 
reached by the deadline in order to sign the letter. The October 13, 
2000 press release explicitly states that while two Senators refused to 
sign the letter (Senators Abraham (MI) and Byrd (WV)), ``Senators Hagel 
and Gregg (NH) could not be reached'' by the deadline.
    Although the circumstances and leaders have changed significantly 
since the letter you referenced was sent in 2000, I continue to support 
the substance of the letter--expressing solidarity with Israel at a 
time of crisis--and I will continue to express this solidarity and 
support as I work with my Israeli counterparts if confirmed as 
Secretary of Defense. The President has said we have Israel's back, and 
I agree.
    As my record in the Senate, my public speeches, and writings in my 
book demonstrate, I have always been a strong supporter of the U.S.-
Israel relationship and of Israel's right to defend itself. 
Additionally, I was a cosponsor of and voted in favor of a number of 
pieces of legislation condemning terrorism against Israel, including 
the Palestinian Anti-Terrorism Act of 2006. The Palestinian Anti-
Terrorism Act of 2006 not only condemned Palestinian terrorism, but 
also placed restrictions on U.S. assistance to the Palestinian 
Authority (PA) unless the PA, and all components within it, accepted 
the quartet principles of renouncing violence, abiding by previous 
agreements, and recognizing Israel's right to exist.

                             national guard
    300. Senator Graham. Mr. Hagel, the Reserve Forces Policy Board 
recently issued a report on the fully burdened and lifecycle cost of 
military personnel and found that a Reserve component member (National 
Guard or Reserve) when not activated is one-third the cost of an Active 
component servicemember. In an era of declining budgets, how do you 
envision leveraging the cost-effectiveness of the National Guard and 
Reserve Forces to meet our Nation's security needs?
    Mr. Hagel. The highly cost effective National Guard and Reserve 
have served the Nation well both in peacetime and war. During the last 
12 years their service has been particularly admirable both overseas 
and in reacting to many emergencies here at home. Although I have not 
analyzed the Reserve Forces Policy Board report you cite, I do believe 
the Guard and Reserve are less costly in a part time status, and 
clearly provide highly trained ready assets with a high degree of long-
term cost efficiency to significantly help sustain the All-Volunteer 
Force. If confirmed, it would be my intention to maintain a strong 
Guard and Reserve, and to take advantage of their skills and 
efficiencies as we structure an affordable military force in an era of 
challenging budgets.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                            taiwan relations
    301. Senator Vitter. Mr. Hagel, the 1979 Taiwan Relations Act and 
the Six Assurances of 1982 have contributed to the peace and stability 
of the Asia-Pacific region for the past 3 decades. With the military 
balance--including air superiority--gradually shifting in China's 
favor, what are your plans to implement the security commitment the 
United States has for Taiwan under this framework?
    Mr. Hagel. I agree that the Taiwan Relations Act has contributed to 
peace and stability in the region for over 30 years. In my view, the 
increasing complexity and sophistication of the military threat to 
Taiwan from China means that Taiwan must devote greater attention to 
asymmetric concepts and innovative technologies to maximize Taiwan's 
strengths and advantages. If confirmed, I would work closely with 
Congress, throughout DOD, and with our interagency partners to ensure 
the continued effective implementation of all of the relevant 
provisions of the Taiwan Relations Act.

    302. Senator Vitter. Mr. Hagel, as Taiwan is likely to retire some 
of its older fighter aircraft in the next 5 to 10 years, do you believe 
that sales of advanced aircraft are an important next step in this 
commitment?
    Mr. Hagel. If confirmed, I will look at what specific capabilities 
will help Taiwan meet its self-defense needs in light of the security 
situation in the Taiwan Strait and the evolving military capabilities 
on the mainland.

    303. Senator Vitter. Mr. Hagel, Secretary Leon Panetta previously 
extended an invitation to China to be part of RIMPAC last year. Do you 
believe that as one of the U.S. strategic partners in the region it is 
important to include Taiwan into the RIMPAC exercises? If so, what is 
your plan to implement this?
    Mr. Hagel. The United States is firm in its commitment to Taiwan's 
self-defense needs under the Taiwan Relations Act. That relationship 
includes defense exchanges and other interactions consistent with our 
unofficial relationship and as provided for in the Taiwan Relations 
Act. If confirmed, I will work to identify appropriate exchanges and 
interactions to assist Taiwan's defense capabilities, and contribute to 
peace and stability in the Taiwan Strait.

                           military strategy
    304. Senator Vitter. Mr. Hagel, our military leaders have stated 
that the United States and its military is at a strategic crossroads 
marked by significant challenges. We have done a remarkable job over 
the last 12 years at catching up to an enemy that we were largely 
unprepared for: political Islam and those radical Islamists who seek to 
impose their ideology in order to rule others--to govern political, 
social, and civic life, as well as religious life. However, we are 
currently facing a damaging sequester, additional proposed Navy, Army, 
and Air Force cuts, while engaging in a shift of U.S. strategy towards 
Asia that seeks to downplay the difficulty associated with the Middle 
East and Africa. The report calls for a scaling back of stability 
operations while suggesting that operations carried out using special 
operations units and drone strikes be increased or sustained. How do 
you see the military maintaining its joint readiness training aspects 
as it draws down from two wars when our strategy appears to be heading 
down a dangerous road?
    Mr. Hagel. Maintaining ready forces is a priority. If confirmed, I 
will work with the Joint Chiefs to better understand the basis of their 
assessment and how we can most effectively address the readiness 
challenges our military faces.
    My sense is that the concerns the Joint Chiefs have expressed about 
readiness come from a variety of factors, including the challenges of 
recovering from 10 years of operational stress, of transitioning to a 
broader range of operations, and of doing all of this in the face of 
fiscal austerity and budget uncertainty. If confirmed, I will carefully 
monitor how all of these factors are posing risks to readiness and will 
work closely with the military and civilian leadership of the 
Department to mitigate those risks to the greatest extent possible.

    305. Senator Vitter. Mr. Hagel, what impact do you think current 
force posturing will have on our ability to deploy to address potential 
threats that are posed by North Korea, Iran, and around the globe?
    Mr. Hagel. As described in the 2012 Defense Strategic Guidance, the 
Department is rebalancing toward the Asia-Pacific while maintaining 
focus on the Middle-East. I think that the significant U.S. military 
presence and activities in Asia are a clear demonstration of the 
enduring U.S. commitment to the region and to addressing current and 
emerging challenges in the Asia-Pacific. Moreover, if confirmed as 
Secretary, I would take every step to maintain the ability of America 
to conduct successful combat operations in more than one region at a 
time, ensuring that we have the ability to meet threats around the 
world, as in the Middle East and North Africa, when they arise. Our 
global posture, engagement with allies and partners, and investment in 
flexible defense architectures for high-demand capabilities, such as 
ballistic missile defense, are of great importance.
    North Korea's December Taepo Dong II missile launch and recent 
threats to conduct a third nuclear test underscore the growing North 
Korean threat to international peace and security. U.S. diplomatic 
efforts following the December missile launch, particularly with China, 
resulted in U.N. Security Council Resolution 2087, which affirms the 
international community's opposition to North Korea's provocations. The 
tightened sanctions in the resolution will help impede the growth of 
North Korea's weapons of mass destruction program. If confirmed, I will 
continue to ensure our military provides the deterrence and defense 
necessary to protect our allies and our interests. This posture is also 
the best way to create conditions where diplomacy has the best possible 
prospects to succeed.
    With respect to Iran, I believe that it is critical that the U.S. 
military maintain a robust presence in the region to counter Iran, 
reassure our partners, and build partner capacity. Our carrier presence 
is a key element of this presence. If confirmed, I will work with the 
combatant commanders to revalidate our posture and ensure it best 
addresses the threats, challenges, and opportunities in the region to 
preserve all options for the President while balancing other national 
security needs.

    306. Senator Vitter. Mr. Hagel, you stated in responses to advance 
policy questions in regard to the Joint Chief's concerns about a hollow 
force that: ``the concerns the Joint Chiefs have expressed about 
readiness come from a variety of factors, including the challenges of 
recovering from 10 years of operational stress of transitioning to a 
broader range of operations, and of doing all of this in the face of 
fiscal austerity and budget uncertainty.''
    Successfully meeting our national security strategic objectives 
with a smaller, overall force will require us to improve our focus on 
training our servicemembers from the separate branches effectively. 
Last year General Ray Odierno, USA, Chief of Staff of the Army spoke to 
this committee about the importance of a joint force that is flexible 
and adaptive to the challenges of the new environment. Could you please 
provide assurances that vital training will not be walked away from, 
training such as Joint Readiness Training Centers where the Air Force 
and Army conduct training operations that hugely effect fundamental 
joint operations?
    Mr. Hagel. Maintaining ready forces is of highest priority, 
especially in a world of ever changing challenges and threats. If 
confirmed, I will work with the Joint Chiefs to better understand the 
basis of their assessment and how we can most effectively address the 
readiness challenges our military faces. The highest yield training 
exercises will be revisited frequently to ensure that our forces remain 
flexible and adaptive to meet our new challenges.

    307. Senator Vitter. Mr. Hagel, how do you plan to monitor risk and 
the potential mismatch between constrained resources and demands of 
operational plans?
    Mr. Hagel. I am deeply impressed by the caliber and capabilities of 
our military forces. It is vitally important that they be ready to 
respond to the Nation's needs, and I am concerned that further budget 
cuts will negatively affect readiness. If confirmed, I will get regular 
updates by the Joint Chiefs on where we must devote the Department's 
attention and resources to ensure the readiness of the force.

                           nuclear deterrent
    308. Senator Vitter. Mr. Hagel, in the Global Zero report, within 
the context of rebalancing nuclear deterrence you state, ``new 
opportunities will emerge for cooperation with allies and other 
countries with common security interests.'' In your 2008 book you 
stated that, ``the world needs to establish a new global consensus on 
nuclear disarmament and nonproliferation . . . as the world's largest 
nuclear power the United States has a responsibility to lead in that 
effort . . . '' and that ``we must once again convince the world that 
America has the clear intention of fulfilling the nuclear disarmament 
commitments that we have made.''
    There are nine nuclear powers who are out there and a number of 
others who are pursuing nuclear capabilities. Do you believe the 
elimination of the U.S. nuclear triad or Global Strike Command as an 
independent command will increase the security of the United States and 
lead to a more peaceful world?
    Mr. Hagel. I believe in the President's long-term vision of a world 
without nuclear weapons. It is a vision shared by nearly every 
President since Eisenhower, including Ronald Reagan. I also support the 
President's commitment that the United States will not disarm 
unilaterally. If confirmed, I look forward to leading DOD in supporting 
the President's objectives to reduce the number of nuclear weapons and 
their roles in national security policy and to create the conditions 
that will allow others to join with us in this process. Our efforts to 
modernize the nuclear deterrent and build a responsive infrastructure 
go hand-in-hand with efforts to reduce the world's nuclear dangers. The 
United States must have a safe, secure, and effective nuclear deterrent 
so long as nuclear weapons remain. If confirmed, I will work to ensure 
the needed leadership focus on this issue and that institutional 
excellence for nuclear deterrence remains a part of the President's 
comprehensive approach to nuclear security.

    309. Senator Vitter. Mr. Hagel, the Global Zero report would 
seriously limit B-52s and U.S. nuclear deterrent. Please share your 
thoughts on how you balance your previous position with your statements 
that you support our nuclear deterrents.
    Mr. Hagel. In the Global Zero report we took a longer term view of 
what might be possible under different circumstances. The report's 
illustrative reductions to nuclear forces were just that--intended to 
provide a stimulus to national debate about how many nuclear weapons 
are enough and to illustrate a possible pathway forward. If confirmed, 
I will focus on implementing the recommendations of the 2010 NPR, while 
also considering what additional steps may be appropriate, and will 
consult with Congress on the way forward.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
                 joint professional military education
    310. Senator Blunt. Mr. Hagel, do you believe Joint Professional 
Military Education (JPME) helps ensure that the individual Services and 
other agencies that play a role in national security cooperate 
effectively?
    Mr. Hagel. I believe JPME, as established under the Goldwater-
Nichols Act, has been central to strengthening and integrating the 
Joint Force. It is my understanding that the JPME system is 
fundamentally designed to foster cooperation and jointness among the 
members of the different Services. I also understand that members of 
the interagency, as well as international partners, attend JPME. As the 
last decade of war has shown, jointness among our servicemembers and 
their civilian partners is critical to success.
    311. Senator Blunt. Mr. Hagel, if so, what would you do as 
Secretary of Defense to continue to expand and improve our JPME culture 
and programs?
    Mr. Hagel. I am not yet familiar with the scope of current JPME 
programs. If confirmed, I will work with civilian and military 
leadership to assess the effectiveness of these programs and propose 
any changes that are deemed necessary.

             defense budget and national military strategy
    312. Senator Blunt. Mr. Hagel, given the potential severe cuts that 
could be imposed upon the defense budget due to sequestration, how will 
you put a process in place to ensure a strategy-driven QDR process that 
produces recommendations ``fully independent of the budget''?
    Mr. Hagel. If confirmed, I will work with the Department's 
leadership team to ensure that the QDR starts with an assessment of the 
opportunities and challenges that the Nation faces in the emerging 
global security environment, and then identifies priorities based on 
our national security interests for defense policy and force planning. 
The assessment of threats, risks, and opportunities, along with the 
identification of national security interests, would be undertaken 
fully independent of the budget. Prioritization of objectives and 
identification of approaches would follow and be resources informed in 
order to ensure they are realistic and appropriate.

                             cyber security
    313. Senator Blunt. Mr. Hagel, what should be the DOD's role in 
protecting the United States against foreign cyber-attacks to the 
Homeland?
    Mr. Hagel. DOD has the mission to defend the Nation in cyberspace 
and to support a whole-of-government effort to address cyber threats. I 
support this approach. This mission includes a close partnership with 
DHS in its role of leading efforts for the cybersecurity of U.S. 
critical infrastructure, and non-DOD unclassified government networks.

    314. Senator Blunt. Mr. Hagel, what should be the DOD's role in 
protecting the United States against Iranian attacks on the financial 
sector?
    Mr. Hagel. While I cannot speak to the details of any specific 
attacks, I believe that DOD should contribute its capabilities to 
support a whole-of-government effort to address cyber (and other) 
threats to U.S. national and economic security. The President has made 
clear that the United States will respond to hostile acts in cyberspace 
as we would any other threat to our country, and that the United States 
reserves the right to use all necessary means, including military means 
as a last resort, to defend our Nation and our interests. I support 
this approach.

    315. Senator Blunt. Mr. Hagel, are we adequately deterring our 
adversaries in cyberspace?
    Mr. Hagel. I believe that a number of important steps have been 
taken to deter malicious activity in cyberspace, but that the United 
States must do more to protect public and private networks from cyber 
threats. DOD should continue to develop its cyber capabilities and 
expertise, and it should work closely with its public, private, and 
international partners to deter and discourage malicious behavior. I 
also believe that legislation providing for increased information 
sharing on cyber threats and the development of critical infrastructure 
cybersecurity standards, in partnership with the private sector, would 
help reduce vulnerabilities and protect our national and economic 
security.

    316. Senator Blunt. Mr. Hagel, are you worried that America's use 
of cyberwarfare capabilities--such as the famous STUXNET attack on 
Iran--is setting a dangerous precedent for others?
    Mr. Hagel. I am not able to comment on STUXNET or who was 
responsible for it, but I do think that the increased frequency of 
disruptive cyber activities is a clear national security concern. 
Recent such examples of destructive attacks, such as the Shamoon virus 
that virtually destroyed 30,000 computers at Saudi Arabian State Oil 
Company Aramco, are a significant escalation in the cyber threat.

    317. Senator Blunt. Mr. Hagel, given our growing dependence on 
computer networks, should we pursue some sort of a global regime to 
limit this danger?
    Mr. Hagel. I agree with the President that longstanding norms 
guiding state behavior, including the law of armed conflict, also apply 
in cyberspace. I also believe we should continue to press for the 
development of international cyberspace norms that build upon common 
principles for responsible state behavior.

                                 taiwan
    318. Senator Blunt. Mr. Hagel, in accordance with the Taiwan 
Relations Act, the 113th Congress will likely advance commercial 
relations with and foster future defense sales to Taiwan. However, as 
China's naval, air, and missile capabilities increase, defending Taiwan 
will become increasingly difficult. Please describe your security 
commitments to Taiwan as they relate to the sale of advanced aircraft 
to the Taiwan Government.
    Mr. Hagel. I believe that the Taiwan Relations Act has contributed 
to peace and stability in the region for over 30 years. In my view, the 
increasing complexity and sophistication of the military threat to 
Taiwan from China means that Taiwan must devote greater attention to 
asymmetric concepts and innovative technologies to maximize Taiwan's 
strengths and advantages. If confirmed, I would work closely with 
Congress, throughout DOD, and with our interagency partners to ensure 
the continued effective implementation of all of the relevant 
provisions of the Taiwan Relations Act. If confirmed, I will look at 
what specific capabilities self-defense capabilities Taiwan needs in 
light of the security situation in the Taiwan Strait and the evolving 
military capabilities on the mainland.

                      u.s. policy in the caucasus
    319. Senator Blunt. Mr. Hagel, how do you assess U.S.-Azerbaijan 
relations and what will be your policy to expand this strategic 
partnership?
    Mr. Hagel. I recognize the many shared interests and current 
cooperation between the United States and Azerbaijan across the foreign 
policy, economics, energy, and cultural spheres. In particular, the 
U.S.-Azerbaijan defense relationship is strong, with room to grow. I 
understand that DOD engages in regular consultations at high levels 
with Azerbaijani counterparts to identify areas where we can strengthen 
our cooperation and partnership.
    If confirmed, I would continue this senior level engagement with 
Azerbaijan and continue the Department's commitment to supporting 
Azerbaijan's defense reforms, ability to interoperate with NATO and 
deploy to coalition operations, and capacity to address terrorism and 
other transnational threats and secure its maritime borders and energy 
infrastructure. I would look for the United States to be Azerbaijan's 
partner of choice and help Azerbaijan's defense establishment 
contribute to regional security and stability, such as with 
Azerbaijan's significant support to international efforts in 
Afghanistan.

    320. Senator Blunt. Mr. Hagel, how should the United States respond 
to the continued presence of Russian military forces inside 
internationally-recognized Georgian territory?
    Mr. Hagel. I believe that the United States should continue to 
support Georgia's territorial integrity within its internationally 
recognized borders, and remain steadfast in non-recognition of the 
occupied territories of Abkhazia and South Ossetia. We should continue 
to object to Russia's occupation and militarization of Georgian 
territory. If confirmed, I would speak out in support of Georgia's 
territorial integrity and to call on Russia to fulfill its obligations 
under the 2008 ceasefire agreement, including withdrawal of its forces 
to pre-conflict positions and free access for humanitarian assistance. 
I would continue to support the U.S. role as an active participant in 
the Geneva discussions, working with the co-chairs and others in 
pursuit of a resolution to the conflict.
    We should continue to fully support Georgia's sovereignty and 
territorial integrity as we seek to work on practical steps with Russia 
to promote stability and security on the ground and ultimately, a 
peaceful resolution of the conflict.

    321. Senator Blunt. Mr. Hagel, how do you assess the current U.S. 
military relationship with countries in the Caucasus region, 
specifically Georgia, Armenia, and Azerbaijan?
    Mr. Hagel. I believe DOD has fostered strong relations with 
Georgia, Armenia, and Azerbaijan to strengthen each nation's political 
independence and contributions to broader regional security and 
stability. I understand that there are regular senior level 
consultations with each of these partners, in support of defense 
reforms, interoperability with NATO and support to coalition 
operations, and building capacity to address the range of transnational 
threats in the region. I believe that these defense partnerships have 
produced notable successes, including the significant contributions 
made by each country to NATO operations. In Afghanistan, Georgia has 
deployed two battalions of soldiers. Armenia and Azerbaijan have each 
supplied a company to the NATO International Security Assistance Force 
(ISAF). Georgia and Azerbaijan provide key transit access into the 
Afghanistan theater. In Kosovo, Armenia has deployed a platoon of 
soldiers under U.S. command to the NATO Kosovo Force (KFOR).
    Our defense partnerships should take into account the many 
political and security challenges the region faces, among them the 
Nagorno-Karabakh conflict and the occupied territories in Georgia. We 
should design our engagement deliberately so that it carefully 
contributes to regional stability rather than enflaming existing 
tensions.

    322. Senator Blunt. Mr. Hagel, should the United States deepen its 
military ties with these nations?
    Mr. Hagel. The United States has a shared interest with Georgia, 
Armenia, and Azerbaijan to partner on the development of each nation as 
a contributor of security and stability to the broader region. If 
confirmed, I would continue to engage these nations and seek areas to 
deepen these partnerships in ways appropriate to our shared interests, 
political will, available resources, and capacity to absorb new 
capabilities and missions.

    323. Senator Blunt. Mr. Hagel, how will these ties impact U.S. 
relations with Russia?
    Mr. Hagel. It is prudent to give consideration to how improved ties 
with one country might affect the broader region. If confirmed, I would 
support DOD efforts to seek and provide transparency in our defense 
cooperative relations in the region. I would look for Department 
engagement to be guided by principles that strive to enhance regional 
security, the strengthening of responsible defense reforms, and 
adherence to the rule of law. These principles must also strengthen 
sovereignty and independence-the United States should continue to 
emphasize its desire to cooperate and assist, not to dominate or 
impose. If confirmed, I would support engagement with key states 
throughout the region, including Russia, and strive to ensure all 
recognize that U.S. cooperation with one is not at the expense of the 
cooperation with or security of another.

    324. Senator Blunt. Mr. Hagel, do you believe that NATO should 
expand?
    Mr. Hagel. I support the administration position that NATO's door 
remains open.

    325. Senator Blunt. Mr. Hagel, please describe how U.S. defense 
policies can ensure the sovereignty and political independence of our 
regional partners such as Azerbaijan and Armenia.
    Mr. Hagel. The objective of our relations with Azerbaijan and 
Armenia should be to strengthen each nation's political independence 
and contributions to broader regional security and stability. We should 
continue to seek regional stability through our bilateral and 
multilateral engagement. DOD has an important role to play in those 
regards, supporting overall U.S. engagement objectives.

                          u.s. africa command
    326. Senator Blunt. Mr. Hagel, undoubtedly, radical fundamentalism 
and terrorism continues to spread in Northern Africa. What is U.S. 
Africa Command's (AFRICOM) role in responding to and preventing the 
spread of terrorism in Mali, Nigeria, Somalia, Libya, and now Egypt?
    Mr. Hagel. Countering terrorism in Africa, just as elsewhere in the 
world, is a multi-faceted problem requiring a whole-of-government 
solution. DOD contributes to the counterterrorism mission in Africa 
primarily by strengthening the defense capabilities of African states 
and regional organizations, and by working to support African-led 
operations, such as the African Union Mission in Somalia. AFRICOM is 
responsible for implementing DOD's counterterrorism and partner 
capacity-building missions throughout the African continent through 
military-military exchanges, exercises, and security cooperation on the 
African continent. When directed, AFRICOM is also prepared to conduct 
military operations in order to deter and defeat terrorism and other 
transnational threats, and to provide a security environment conducive 
to good governance and development.

                    movement of troops to australia
    327. Senator Blunt. Mr. Hagel, please describe the nature, purpose, 
and strategic importance of our ``permanent and constant'' commitment 
to a U.S. military presence in Australia as it relates to countering 
China's influence and reasserting U.S. interests in the region.
    Mr. Hagel. In 2010, the Prime Minister of Australia and President 
Obama agreed to establish a rotational U.S. Marine Corps presence in 
northern Australia. The first rotation of approximately 200 U.S. 
marines took place from April through September 2012. In addition, 
closer cooperation between the Royal Australian Air Force and the U.S. 
Air Force has resulted in increased rotations of U.S. aircraft through 
northern Australia. These two initiatives further enhance the 
capabilities of both countries by increasing opportunities for combined 
training and enabling more effective pursuit of common interests in the 
Asia-Pacific region. Building on the interoperability developed through 
joint operations over the past decade in Iraq and Afghanistan, these 
initiatives will help us deepen that interoperability long after the 
wars are over. The United States will not build any U.S. bases in 
Australia. U.S. forces will rotate in and out of Darwin and will be co-
located with Australian forces on existing Australian military bases.
    Our military cooperation with Australia helps the United States 
rebalance toward the Asia-Pacific region and specifically supports 
efforts to become more geographically distributed and operationally 
resilient in the Pacific. U.S.-Australian force posture initiatives are 
not aimed at any one country. I believe that the U.S. rotational 
presence in northern Australia and our strong alliance with Australia 
will lead to further cooperation with a variety of nations. The United 
States sees many shared regional challenges in the Asia-Pacific, 
including responding to natural disasters, countering extremism, 
ensuring freedom of navigation, and enhancing regional stability.

                      satellite and radio systems
    328. Senator Blunt. Mr. Hagel, DOD's satellite and radio systems 
are essential to our national security. However, some of the spectrum 
that DOD currently controls is well-suited for use for commercial 
mobile broadband services. In fact, the 1755-1780 MHz band, which DOD 
holds the license for, is particularly well suited for mobile broadband 
because it is already being used for this purpose internationally. 
Additionally, the administration has a stated priority, as part of the 
National Broadband Plan, of making more spectrum available for auction 
to commercial providers for consumer use. Ostensibly, this plan would 
include both the reallocation of some broadcast spectrum and of some 
spectrum licenses held by government users. Can you provide the cost 
estimate for relocating DOD operations off of the 1755-1780 MHz band?
    Mr. Hagel. I understand that DOD and the other Federal agencies are 
working through National Telecommunication and Information Agency's 
(NTIA) established processes to support the President's goal to make 
500 MHz available for commercial mobile broadband use. As part of that 
process, the Department has conducted a detailed study of the cost and 
operational feasibility of reallocation of the entire 1,755-1,850 MHz 
band, which is used by the Department to meet mission requirements. The 
NTIA has reported that it would cost nearly $13 billion for DOD to 
vacate the entire 95 MHz, and $18 billion to cover non-Department 
systems as well, and that alternate spectrum and adequate time to 
transition to that alternate spectrum would need to be provided. If I 
am confirmed, I will direct the Department to consult with NTIA about 
whether it would be useful for the NTIA to initiate a detailed study of 
vacating just the lower 25 MHz.

                base realignment and closure commission
    329. Senator Blunt. Mr. Hagel, what is your position on the 
establishment of a new BRAC Commission to oversee additional domestic 
base closures?
    Mr. Hagel. I understand Congress did not accept that the 
administration's proposal for two rounds of BRAC. However, I think it 
is necessary for the Department to examine its infrastructure and 
eliminate excess. While the BRAC process is not perfect, it is the best 
process identified to date, and I believe a fair and comprehensive way 
to right-size the Department's domestic footprint. If confirmed, I 
would have to look at the need for BRAC in the future and would work 
with Congress on any such proposal.

                     tactical aviation competition
    330. Senator Blunt. Mr. Hagel, DOD faces an upcoming challenge to 
maintain a competitive and innovative defense industrial base to meet 
the Nation's tactical aviation needs. The fiscal year 2013 President's 
budget demonstrates a near-term shift to a single manufacturer for 
tactical aircraft. This outcome will have significant consequences: 
with a single-source option for tactical aircraft programs, DOD will 
lose vital competition that can help drive down costs, leading to 
potentially more expensive, less capable systems; investment in 
innovative technology and engineering for tomorrow's capabilities will 
suffer without a balanced, diverse tactical aviation base; and a 
limited manufacturing capability will struggle to be flexible to cope 
with changing demand and there will be no way to manage risk for future 
developing programs. Today, the F/A-18 program provides DOD with a 
highly capable, affordable, and available manufacturing line that 
promotes competition and drives innovation into tactical aviation. It 
is the only current American tactical aircraft that can fill 
operational gaps or address the Navy's tactical aviation shortfall. All 
F/A-18 aircraft--the F/A-18E/F Block II Super Hornet and EA-18G 
Growler--continue to be delivered on-cost and ahead of schedule. Can 
you please discuss the importance of maintaining competition in 
tactical aviation production?
    Mr. Hagel. I recognize that competition in all acquisition 
programs, including tactical aviation production, is key to 
affordability, to innovation, and to a strong industrial base. I intend 
to fully support the continuation of appropriate competition.

    331. Senator Blunt. Mr. Hagel, if confirmed as Secretary of 
Defense, what can DOD do to ensure that the F/A-18 line isn't ended in 
the near-term, both for the purposes of filling potential operational 
gaps and managing risk of future tactical aviation programs?
    Mr. Hagel. If confirmed, I will assess the balance of strike 
fighter capability, and the state of the F/A-18 production line. I will 
also ensure the Department supports international sales of the F/A-18.

                          international sales
    332. Senator Blunt. Mr. Hagel, in your testimony before the Senate 
Armed Services Committee, you discussed the need to protect the core 
defense industrial base, even during a time that budget challenges will 
lead to some necessary cuts in spending. One particular way to support 
the Nation's defense infrastructure is to support international sales 
of American defense manufacturing. International sales help keep 
manufacturing facilities alive while ensuring that the engineering 
expertise and workforce are retained for additional domestic 
production. Your predecessor, Secretary Panetta, took this 
responsibility very seriously, advocating for American defense 
platforms vigorously as they competed against other international 
options in campaigns abroad. The Military Services can also be strong 
advocates, although not all demonstrate the same level of commitment to 
international campaigns. If you are confirmed as Secretary of Defense, 
can you describe your role--both personally and as a broader policy 
within DOD--to support international sales of eligible American defense 
programs? Please discuss on how DOD and the individual Services might 
better promote American products abroad.
    Mr. Hagel. I believe that international sales help to sustain the 
defense industrial base, and strengthen our relationship with allies 
and partners.
    If confirmed, I would work closely with the Secretary of State and 
Congress to shape international sales planning and to support the 
timely transfer of capability. I would also meet with defense industry 
leaders to identify areas where foreign sales opportunities exist that 
would help sustain needed industrial capabilities.
    Furthermore, if confirmed, I would continue to build on the 
foundation established by both Secretaries Gates and Panetta to 
streamline the Department's foreign military sales process.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                            nuclear weapons
    333. Senator Lee. Mr. Hagel, nuclear deterrence has been a 
successful element of our national defense posture for decades. What is 
your position on and rationale for the number of nuclear warheads and 
their disposition among the three forms of delivery in order to 
maintain a credible and successful nuclear deterrent posture for our 
Nation?
    Mr. Hagel. America's nuclear deterrent for more than 60 years has 
played a central role in ensuring global security. If confirmed, I will 
be committed to maintaining a safe, secure, and effective nuclear 
arsenal. I believe that a triad of ICBMs, SLBMs, and nuclear-capable 
heavy bombers continues to support U.S. national security interests 
under New START limits.

    334. Senator Lee. Mr. Hagel, what do you see as the future of 
Minuteman III?
    Mr. Hagel. With regard to Minuteman III, I am aware that the NDAA 
for 2007 requires sustaining the Minuteman III weapon system through 
2030. If confirmed, I will ensure that the Department continues to 
assess the whole Minuteman system and its components to be sure that 
this system is sustained through at least 2030.

                                  f-35
    335. Senator Lee. Mr. Hagel, the Air Force has retired nearly 1,900 
aircraft over the past decade, the majority of which have not been 
replaced. Fighter inventories have been reduced by almost 25 percent 
and F-22 production was truncated to well below original Air Force 
requirements. While newer aircraft tend to be more capable than those 
they replace, even a more capable aircraft can only be in one place at 
one time. The F-35 is now the sole remaining fighter modernization 
program in DOD. What is your position on the need for this aircraft and 
how will you ensure we continue to modernize an aging fighter force?
    Mr. Hagel. My view is we cannot let any other nation achieve parity 
with the United States in the ability to control the air. My 
understanding is that other nations are developing modern fighters that 
will challenge our existing fighters and that the F-35 is needed to 
maintain our advantage. If confirmed I will review the health of the F-
35 program to ensure the aircraft are delivered with the capability we 
need and at a cost we can afford. I will also examine our options for 
continued modernization in this critical area.

                        defense industrial base
    336. Senator Lee. Mr. Hagel, DOD relies on our Nation's defense 
industrial base to provide and support the equipment needed by our 
military to fulfill its role in our national defense. What steps would 
you take to ensure that we have a robust defense industrial base, both 
public and private, that can reliably and affordably provide and 
support our military equipment in a timely manner in the future?
    Mr. Hagel. If confirmed, I will place a high priority on ensuring 
the continued viability of the industrial base. I will assess the 
programs the Department has already authorized and that are underway to 
ensure they meet that goal.
    Working closely with the Military Services and industry, I will 
ensure early identification of those skills and manufacturing 
capabilities that are both critical and increasingly fragile, and take 
appropriate actions necessary to preserve those few capabilities.

                    u.s. role in the united nations
    337. Senator Lee. Mr. Hagel, what role should the United States 
play within the U.N. peacekeeping missions?
    Mr. Hagel. The United States has historically played an important 
role in guiding and supporting U.N. peacekeeping missions, and I 
believe that this approach continues to make good sense. As a permanent 
member of the U.N. Security Council, we should continue to exert 
leadership across the full spectrum of peacekeeping activities--from 
mission inception and establishment, through various phases of 
operations until mission closure. In such diverse venues as Haiti, 
Liberia, Sudan and South Sudan, U.N. peacekeeping is making vital 
contributions to peace and stability in the face of enormous 
challenges. It will not always make sense for the United States to 
provide ``boots on the ground'' to U.N. peacekeeping missions, but I do 
believe there are likely to be cases where U.S. direct involvement will 
be in U.S. national interests.

    338. Senator Lee. Mr. Hagel, do you still feel that the United 
States should deploy ground troops as U.N. peacekeepers in a non-
militarized Palestinian state? If not, what has changed?
    Mr. Hagel. I support a two-state solution, with two states living 
side-by-side in peace and security: the Jewish State of Israel and an 
independent Palestinian State; each state enjoying self-determination, 
mutual recognition, and peace. The arrangements necessary to achieve a 
lasting and effective peace can only by determined by the parties 
through negotiations. In addressing the specific security arrangements, 
these details will also need to be determined by the parties, along 
with the other final status issues. Israel must be able to defend 
itself--by itself--against any threat. The security provisions in a 
final peace deal must be robust enough to prevent a resurgence of 
terrorism; to stop the infiltration of weapons; and to provide 
effective border security. The United States, and the international 
community, should be prepared to support these security requirements as 
requested by the parties.

                      military involvement in asia
    339. Senator Lee. Mr. Hagel, in your opinion what effect will the 
recent shift to the Pacific bring to Asian countries? What will the 
shift mean for: Russia, China, North Korea, Japan, and the Republic of 
China?
    Mr. Hagel. The President has said that the rebalance to the Asia-
Pacific is a whole-of-government effort to renew and deepen U.S. 
engagement throughout the Asia-Pacific. This policy is not a new shift, 
but an increased assertion of this region's relative economic, 
political, and security importance--one with which I agree. A key tenet 
of the rebalance should continue to be modernizing our alliances and 
deepening partnerships, especially through increased regional 
engagement and capacity building, bilaterally and multilaterally.
    Japan is the linchpin of our presence in Asia. Japan is an 
increasingly critical partner in missile defense, humanitarian 
assistance and disaster relief, maritime security, and other important 
areas. I would continue the work of my predecessors to broaden and 
deepen this critical alliance to ensure that it is capable of 
responding to the security challenges of the 21st century.
    The United States has a similarly robust relationship with the 
Republic of Korea (ROK). My understanding is that we have a 
comprehensive agenda aimed at facilitating the smooth transfer of 
wartime operational control in 2015, and ensuring the ROK Government 
has the capabilities necessary to defend the peninsula. I would 
continue these important efforts, and would also continue to stress the 
importance of trilateral ties between Japan, the ROK, and the United 
States.
    The Taiwan Relations Act provides that the United States ``will 
make available to Taiwan such defense articles and defense services in 
such quantity as may be necessary to enable Taiwan to maintain a 
sufficient self-defense capability.'' That policy has contributed to 
peace and stability in the region for over 30 years and is consistent 
with longstanding U.S. policy, which calls for a peaceful resolution of 
the Taiwan issue in a manner acceptable to the people on both sides of 
the Taiwan Strait. If confirmed, I would work closely with Congress, 
the Commander of U.S. Pacific Command, and the Department's interagency 
partners to ensure the continued effective implementation of all of the 
relevant provisions of the Taiwan Relations Act.
    Our relationship with China will be critical in the rebalance. We 
will continue to build our partnership with China based on practical 
steps to address shared challenges and interests in the region while 
also monitoring the rapid modernization of China's military and 
assertion of territorial claims in the region.
    Through the rebalance we will work with our partners to deter 
destabilizing and provocative behavior by North Korea, including its 
proliferation activities, ballistic missile program, and nuclear 
program which continue to present a serious threat to the United 
States, our regional allies, and the international community. We will 
also ensure that we can deter and, if necessary, defeat North Korean 
aggression.
    The United States will work to build trust and understanding with 
Russia in areas of mutual interest in Asia and encourage it to be a 
contributor across a broad range of issues in the region.
                                 ______
                                 
                Questions Submitted by Senator Ted Cruz
                             iran sanctions
    340. Senator Cruz. Mr. Hagel, you claim to have voted against the 
renewal of the Iran-Libya Sanctions Act (ILSA) in 2001 because ``I 
thought there might be other ways to harness our vast power and that of 
our allies.'' Please specify what other ways would have been more 
effective than the sanctions imposed by ILSA.
    Mr. Hagel. I believe that multilateral sanctions against Iran, 
backed by a unified world community, are the most effective sanctions. 
For example, the multilateral sanctions implemented in U.N. Security 
Council (UNSC) Resolution 1929--which resulted from President Obama's 
work in 2010 to cement the Permanent 5 UNSC members in unanimously 
supporting multilateral efforts--are the most crippling sanctions 
against Iran in history. Continuing to maintain the international 
community's unified stance to prevent Iran from acquiring a nuclear 
weapon--to include further sanctions if necessary--is more effective 
than implementing unilateral sanctions. However, times and 
circumstances have changed significantly since 2001 and I agree that 
Iran's continued pursuit of a nuclear weapon means that further 
sanctions, both multilateral and unilateral, may be necessary.

    341. Senator Cruz. Mr. Hagel, after receiving criticism for your 
record on sanctions, you wrote in a letter to Senator Barbara Boxer 
that you now ``agree that with Iran's continued rejection of diplomatic 
overtures, further effective sanctions, both multilateral and 
unilateral--may be necessary . . . '' In your advance policy questions, 
you also compliment the President's strategy on Iran, and acknowledge 
that it has ``included the application of smart, unprecedented, and 
effective sanctions against the Iranian regime . . . '' The sanctions 
the President has utilized include unilateral sanctions. Why do you now 
feel you can support unilateral sanctions, when for years in the Senate 
you opposed their use?
    Mr. Hagel. I continue to fully support President Obama's policy 
with respect to sanctions on Iran. While there are some circumstances 
in which unilateral sanctions are effective, I believe that 
multilateral sanctions against Iran are the most effective approach. 
For example, the multilateral sanctions implemented in UNSC Resolution 
1929--which resulted from President Obama's work in 2010 to cement the 
Permanent 5 UNSC members in unanimously supporting multilateral 
efforts--are the most crippling sanctions against Iran in history. 
Continuing to maintain the international community's unified stance to 
prevent Iran from acquiring a nuclear weapon--to include further 
sanctions if necessary--is more effective than implementing unilateral 
sanctions.
    That said, now that we have built international support for 
sanctions against Iran, unilateral sanctions are more likely to have a 
crippling effect. As I wrote to Senator Boxer, I agree that with Iran's 
continued pursuit of a nuclear weapon may make further effective 
sanctions, both multilateral and unilateral, necessary.

    342. Senator Cruz. Mr. Hagel, in your advance policy questions, you 
also state that the President's strategy on Iran ``smartly . . . made 
clear that all options are on the table'' and that you ``agree with the 
President that the United States should take no options off the table 
in our efforts to prevent Iran from acquiring a nuclear weapon.'' You 
then promise that, if confirmed, you ``will focus intently on ensuring 
that the U.S. military is, in fact, prepared for any contingency.'' Yet 
in 2010 you told a forum at the Atlantic Council that you were ``not so 
sure it is necessary to continue to say all options are on the table'' 
with respect to Iran. You wrote in your 2008 book America: Our Next 
Chapter that, ``the genie of nuclear armaments is already out of the 
bottle, no matter what Iran does,'' and went on to imply that sovereign 
nation states possessing nuclear weapons could be excepted to respond 
with ``some degree of responsible, or at least sane, behavior.'' Please 
clarify your view on whether or not the military option should remain 
on the table with Iran.
    Mr. Hagel. Let me be clear: I support the President's policy on 
Iran of prevention, not containment. We must prevent Iran from 
acquiring a nuclear weapon. I have never advocated for a policy of 
containment nor have I ever stated the United States could live with a 
nuclear Iran. In order to prevent Iran from acquiring a nuclear weapon, 
we must keep all options on the table, including the military option. 
If confirmed as the Secretary of Defense, I will--as stated 
previously--ensure that the U.S. military is planning and prepared for 
all contingencies. I have consistently argued in favor of keeping all 
options on the table, including in my September 28, 2012 Washington 
Post op-ed co-authored with two former CENTCOM commanders, where we 
said, ``Our position is fully consistent with the policy of presidents 
for more than a decade of keeping all options on the table, including 
the use of military force, thereby increasing pressure on Iran while 
working toward a political solution.''

    343. Senator Cruz. Mr. Hagel, in regards to the quote in your book, 
why would you feel that a military option would be necessary, when you 
seem to believe that the United States and our allies could live with a 
nuclear Iran?
    Mr. Hagel. See answer to Question #342.

                            nuclear weapons
    344. Senator Cruz. Mr. Hagel, you are a signatory of Global Zero, 
an initiative dedicated to the elimination of all nuclear weapons. You 
were also a member of the six-person Global Zero U.S. Nuclear Policy 
Commission, headed by retired U.S. Marine Corps General James 
Cartwright. As a result, your name appears on the Commission's May 2012 
report, which calls for cutting deployed U.S. nuclear warheads from 
1,550 to 450 strategic weapons by 2022. In your testimony, you insisted 
this report was merely illustrative and had no relevance to your actual 
policy on our nuclear arsenal. Yet in your 2008 book America: Our Next 
Chapter, you wrote with respect to nuclear disarmament: ``As the 
world's largest nuclear power, the United States has a responsibility 
to lead in this effort. There is no other way. In particular, we must 
once again convince the world that America has the clear intention of 
fulfilling the nuclear disarmament commitments that we have made.'' 
Please explain specifically how you will fulfill the responsibility you 
believe we have to lead the effort on nuclear disarmament.
    Mr. Hagel. I believe in the President's long-term vision of a world 
without nuclear weapons. It is a vision shared by nearly every 
President since Eisenhower, including Ronald Reagan. I also support the 
President's commitment that the United States will not disarm 
unilaterally. If confirmed, I look forward to leading DOD in supporting 
the President's objectives to reduce the number of nuclear weapons and 
their roles in national security policy and to create the conditions 
that will allow others to join with us in this process. Our efforts to 
modernize the nuclear deterrent and build a responsive infrastructure 
go hand-in-hand with efforts to reduce the world's nuclear dangers. The 
United States must have a safe, secure, and effective nuclear deterrent 
so long as nuclear weapons remain. If confirmed, I will work to ensure 
the needed leadership focus on this issue and that institutional 
excellence for nuclear deterrence remains a part of the President's 
comprehensive approach to nuclear security.

                        negotiating with russia
    345. Senator Cruz. Mr. Hagel, you have insisted that you have 
always been a strong proponent of bilateral arms control agreements, 
and you have spoken warmly in the press (Interview on the Riz Kahn 
Show, Al Jazeera, 3/21/09) of former President Dimitri Medvedev as a 
youthful leader with a strong commitment to nuclear arms reduction. 
Going into the new round of arms talks with Russia that was announced 
this week, do you consider President Vladimir Putin a similarly 
reliable negotiating partner?
    Mr. Hagel. While there has been no announcement of new arms control 
talks, if there are such talks in the future, I would expect President 
Putin to come to the table as a reliable negotiating partner. Of 
course, being a ``reliable'' partner does not mean that President 
Putin, or any negotiator, will agree with U.S. positions or 
perspectives. But I expect that he would enter into negotiations as a 
reliable negotiating partner.

    346. Senator Cruz. Mr. Hagel, Senator Kerry was asked during his 
confirmation hearing about our relationship with Russia and if he would 
recommend entering into any new arms control measures until all 
compliance and verification issues regarding existing agreements were 
fully settled. Would you recommend any new arms control agreements if 
there are existing verification and compliance issues with current 
agreements?
    Mr. Hagel. Compliance with legal obligations is central to the 
effectiveness of arms control treaties, and concerns about 
noncompliance must be addressed. If confirmed, I will ensure that DOD 
works with the Department of State and other interagency partners in 
assessing and responding to compliance concerns. While resolution of 
such issues with Russia is clearly important, I do not believe that 
discussions of possible further nuclear arms reductions need await 
resolution of all compliance issues. If confirmed, I would have the 
Department work with the interagency to address any compliance concerns 
through the existing arrangements established by the respective 
treaties for that purpose. If resolution in that manner is not 
possible, the administration should raise the issues with the Russian 
Federation government at higher levels, including up to the ministerial 
or presidential level if necessary.

    347. Senator Cruz. Mr. Hagel, how specifically would you address 
these issues?
    Mr. Hagel. See answer to Question #346.

    348. Senator Cruz. Mr. Hagel, should any new arms control 
agreements be negotiated, would it be your policy that they will occur 
through the treaty power and come to the Senate for ratification?
    Mr. Hagel. If confirmed, I will consult closely with Congress 
regarding any additional arms control agreements--and whether they 
should occur through the treaty power and come to the Senate for advice 
and consent to ratification.

                                 israel
    349. Senator Cruz. Mr. Hagel, in a number of statements (for 
example your July 28, 2006, speech to the Brookings Institution), you 
have spoken highly of the 2002 Beirut Declaration by the Arab League as 
a ``squandered'' diplomatic opportunity for both the United States and 
Israel. Do you believe Israel should be prepared to accept the 
``achievement of a just solution to the Palestinian refugee problem to 
be agreed upon in accordance with U.N. General Assembly Resolution 
194'' as per the Declaration?
    Mr. Hagel. I continue to believe, as I did when I cosponsored and 
voted for the Palestinian Anti-Terrorism Act of 2006, that any partner 
for peace must renounce violence, abide by previous agreements, and 
recognize Israel's right to exist. Negotiations between the parties are 
the only viable path to peace and the two-state solution, with two 
states living side by side in peace and security: the Jewish State of 
Israel and an independent Palestinian State.
    With those goals in mind, the Arab Peace Initiative is a step in 
the right direction toward a comprehensive peace in the Middle East. I 
do not believe that Israel or the Palestinians should have an agreement 
imposed on them. The details included in the Arab Peace Initiative, 
like all details of a peace agreement, will need to be negotiated by 
the parties. Other Arab states seeking normalization with Israel, as 
suggested in the Arab Peace Initiative, is an aspirational goal for a 
comprehensive peace in the Middle East.
    All sides seek a just and lasting peace that will ensure Israel's 
security. If confirmed as Secretary of Defense, I look forward to 
working with Secretary Kerry to assist the administration's efforts 
toward peace.

    350. Senator Cruz. Mr. Hagel, your 2006 comment to Aaron David 
Miller about how ``The Jewish lobby intimidates a lot of people up 
here'' remains troubling. Do you think that people who advocate for a 
strong U.S.-Israel relationship--whether you call them part of the 
Jewish lobby or the Israel lobby--are advancing the interests of a 
foreign government, namely Israel, above those of the United States?
    Mr. Hagel. In conjunction with his interview with me in 2006, Aaron 
David-Miller also wrote that, ``Hagel is a strong supporter of Israel 
and believer in shared values.''
    As I have stated many times, I regret my unfortunate choice of 
words regarding the Jewish lobby to describe the pro-Israel lobby. I 
believe one of the essential elements of our democracy is that every 
American has the right to express their views to their elected 
officials. In fact, in that same interview with Aaron Miller, I also 
said that ``Everyone has a right to lobby; that's as it should be. Come 
see your Senator, your Congressman, and if you can get the guy to sign 
your letter: great, wonderful.'' I know that the pro-Israel lobby 
includes Jews and non-Jews whom are all Americans supporting Israel 
because it is in the interest of the United States. I consider myself 
to be a pro-Israel American and have supported Israel throughout my 
career because of our shared values and ideals of democracy.
    On expanding U.S.-Israel cooperation, if confirmed, I intend to 
continue to strengthen our bilateral defense relationship in a number 
of ways. These include, but are not limited to, missile defense, 
intelligence sharing, counterterrorism, and maritime security. I know 
that over the past 4 years the administration has taken unprecedented 
steps to expand our cooperation with Israel. Today, with congressional 
support, the United States provides Israel over $3 billion annually in 
Foreign Military Financing (FMF), which is the backbone of our 
commitment to Israel's defense. In addition, President Obama, 
Secretaries Gates and Panetta have worked to provide extensive support 
of over $270 million to Israel for the Iron Dome counter rocket system. 
As Iron Dome has proven itself very well in the field and saved many 
Israeli lives, I intend to continue such support.
    This financial support is complemented by extensive military-to-
military cooperation, including joint exercises. If confirmed, I will 
seek to ensure that we build on this cooperation and expand it into new 
areas as the United States and Israel address emerging threats at this 
time of historic change in the Middle East. I believe we have a 
tremendous opportunity for further expansion of our missile defense 
efforts as well as cooperation in areas like space and cyberspace.
    Finally, the foundation for successful cooperation is the close 
personal relationships U.S. military and defense civilian leaders have 
with Israeli military and defense leadership. Secretary Gates and 
Secretary Panetta, as well as the Chairmen of the Joint Chiefs of 
Staff, have all developed very close relationships with their 
counterparts. Continuing with this tradition will be one of my highest 
priorities if I am confirmed. This will be vital to ensuring that we 
understand Israel's defense requirements, and to finding ways to 
address mutual threats that meet our common interests.

    351. Senator Cruz. Mr. Hagel, if not, why did you say that you 
would support the positions of what you called the ``Jewish lobby'' if 
you were an Israeli Senator, but that you couldn't since you were a 
United States Senator who had taken an oath to the United States?
    Mr. Hagel. See answer to Question #350.

    352. Senator Cruz. Mr. Hagel, how does that not imply that only 
people loyal to Israel could support the positions of the Jewish lobby?
    Mr. Hagel. See answer to Question #350.

    353. Senator Cruz. Mr. Hagel, given your disavowal of this remark 
in your testimony, can you specify how you intend to ``expand the depth 
and breadth of U.S.-Israel cooperation'' as you pledged in your January 
14, 2013, letter to Senator Barbara Boxer?
    Mr. Hagel. See answer to Question #350.

    354. Senator Cruz. Mr. Hagel, you have been widely linked in the 
press with your Atlantic Council colleague Charles W. Freeman, who has 
been a vocal supporter of your nomination. Please review paragraph 5 
from Mr. Freeman's May 4, 2011, speech to the Palestine Center in 
Washington, DC. (the transcript and video of the speech are available 
here, if you would like the full context http://
www.thejerusalemfund.org/ht/display/ContentDetails/i/29130/pid/897):
    ``Similarly, the cruelties of Israelis to their Arab captives and 
neighbors, especially in the ongoing siege of Gaza and repeated attacks 
on the people of Lebanon, have cost the Jewish state much of the global 
sympathy that the Holocaust previously conferred on it. The racist 
tyranny of Jewish settlers over West Bank Arabs and the progressive 
emergence of a version of apartheid in Israel itself are deeply 
troubling to a growing number of people abroad who have traditionally 
identified with Israel. Many--perhaps most of the most disaffected--are 
Jews. They are in the process of dissociating themselves from Israel. 
They know that, to the extent that Judaism comes to be conflated with 
racist arrogance (as terrorism is now conflated with Islam), Israeli 
behavior threatens a rebirth of anti-Semitism in the West. Ironically, 
Israel--conceived as a refuge and guarantee against European anti-
Semitism--has become the sole conceivable stimulus to its revival and 
globalization. Demonstrably, Israel has been bad for the Palestinians. 
It is turning out also to be bad for the Jews.''
    Do you consider Mr. Freeman's statement to be an expression of 
mainstream thinking on Israel?
    Mr. Hagel. As I told you at the hearing, I have not spoken with Mr. 
Freeman in several years and do not support his comments. The views 
expressed in the speech by Chas Freeman that you reference are his own, 
and, in my opinion, not accurate.
    I am pleased that Israeli and U.S. leaders agree that the U.S.-
Israel Defense relationship is stronger than ever. I intend to work to 
continue to strengthen the relationship and am looking forward, if 
confirmed, to working closely with my Israeli counterparts.
    As I have said consistently throughout my career, Israel has a 
right to defend itself. Israeli efforts to protect its citizens against 
the actions of terrorist organizations, including Hamas and Hezbollah, 
are part of Israel's right to self-defense. Palestinians will not 
achieve peace or prosperity if Hamas insists on a path of terror and 
rejection, and Palestinians will never realize their independence 
through unilateral actions. I continue to believe, as I did when I 
cosponsored and voted for the Palestinian Anti-Terrorism Act of 2006, 
that any partner for peace must renounce violence, abide by previous 
agreements, and recognize Israel's right to exist. Negotiations between 
the parties are the only viable path to peace and the two-state 
solution, with two states living side by side in peace and security: 
the Jewish State of Israel and an independent Palestinian State.

    355. Senator Cruz. Mr. Hagel, would you affirm that if confirmed, 
you will not recommend the nomination or appointment of Mr. Freeman to 
a position in DOD?
    Mr. Hagel. See answer to Question #354.

                      u.s. troops to u.n. mission
    356. Senator Cruz. Mr. Hagel, in a 2009 report that you co-authored 
for the U.S./Middle East Project, you advocated for the deployment of 
U.S. grounds troops as U.N. peacekeepers in a ``non-militarized 
Palestinian state.'' That same year, in a piece for the Atlantic 
Council, you wrote, ``No country today has the power to impose its will 
and values on other nations.'' These statements seem to hearken back to 
2003, when you stated that the United States ``must be careful to avert 
the perception that we are charting a unilateralist course in our 
foreign policy.'' Do you believe the United States needs a ``permission 
slip'' from the U.N. or another international body before it can engage 
in military operations--how would you address this concern?
    Mr. Hagel. I do not believe we need a permission slip from the 
United Nations before we can engage in military operations. The United 
States will always remain committed to protecting its national security 
interests whenever necessary. I believe the United States is strongest 
when we act alongside our partners, with whom we share common 
interests. I also believe the United States should, and will, act 
unilaterally when we must, as we did with the Osama bin Laden raid. In 
every case, we will act in accordance with the standards that govern 
the use of force, which requires a basis in domestic law and compliance 
with international law.

                           ploughshares fund
    357. Senator Cruz. Mr. Hagel, you currently sit on the board of the 
Ploughshares Fund. Among the groups that Ploughshares has supported is 
the National Iranian American Council (NIAC), headed by Trita Parsi. 
Are you aware that the Ploughshares Fund has given more than $600,000 
to NIAC?
    Mr. Hagel. I completely support one of the primary objectives of 
the Ploughshares Fund: preventing Iran from obtaining a nuclear weapon.
    I was not aware that Ploughshares provided financial support to the 
NIAC. The Ploughshares Fund is committed to full transparency, 
publishes all of their funding decisions and complies with all 
applicable laws and best-practices for a 501(c)3 organization.
    My understanding is that the case you referenced focused on a libel 
lawsuit brought by the NIAC and its president, Trita Parsi, against 
writer Seid Hassan Daioleslam. Records of the case do not include the 
phrase ``deep and incontrovertible ties'' to high-level agents of the 
Iranian regime. In fact, Judge John Bates did not analyze or provide 
judgment on any NIAC ties to the Iranian Government. In his judgment, 
Judge Bates explicitly wrote that, ``Nothing in this opinion should be 
construed as a finding that defendant's articles [about NIAC ties to 
the Iranian Government] were true. Defendant did not move for summary 
judgment on that ground, and it has not been addressed here.''

    358. Senator Cruz. Mr. Hagel, are you aware that NIAC has ties to 
the Iranian Government?
    Mr. Hagel. See answer to Question #357.

    359. Senator Cruz. Mr. Hagel, are you aware of the September 13, 
2012, decision rendered by Judge John Bates in the U.S. District Court 
in Washington, which exposed NIAC's ``deep and incontrovertible ties'' 
to high-level agents of the Iranian regime?
    Mr. Hagel. See answer to Question #357.

                                  cuba
    360. Senator Cruz. Mr. Hagel, in 2002 you referred to Fidel Castro 
as a ``toothless old dinosaur'' and praised former President Jimmy 
Carter's recommended policy of relaxed sanctions and diplomatic 
engagement as ``exactly right''. In 2008, you were a signatory to a 
letter to Secretary of State Condoleezza Rice urging the U.S. relax 
sanctions and engage Cuba due to Castro's ``imminent departure''. As of 
February 1, 2013, the Castros have not departed Cuba or shown any 
indication that additional concessions from the United States would 
modify their repressive regime. An American contractor, Alan Gross, 
languishes in a Cuban prison. Do you still believe Mr. Carter's 
recommended policy towards Cuba is ``exactly right''?
    Mr. Hagel. I support President Obama's Cuba policy which is focused 
on supporting the Cuban people's desire to freely determine their 
future, reducing their dependence on the Cuban state, and pursuing the 
widely shared goal of a Cuba that respects the universal human rights 
of all its citizens. The President's actions to facilitate family 
travel, people to people travel, the flow of remittances into private 
hands, and information to, from, and within Cuba have contributed to 
this objective. I share the President's view that the Cuban Government 
must change its outdated political model to reflect the commitments 
undertaken by other governments in the Hemisphere to promote and defend 
representative democracy. Policy matters and other diplomatic issues 
involving Cuba are led by the State Department.

    361. Senator Cruz. Mr. Hagel, would relaxing sanctions and engaging 
with the Castros be the hallmarks of your policy towards Cuba, should 
you be confirmed?
    Mr. Hagel. See answer to Question #360.

                              north korea
    362. Senator Cruz. Mr. Hagel, in a 2003 interview with PBS, you 
declared that isolating North Korea was the last thing the United 
States should do. Despite a decade at attempted engagement and 
negotiations, North Korea remains overtly hostile to the United States 
and is actively pursuing weapons targeted at us and our allies. Given 
North Korea's dismal record on negotiating in good faith, how 
specifically would the additional outreach you advocated in 2003 have 
improved our position in relationship to North Korea today?
    Mr. Hagel. Since my interview with PBS in early 2003, diplomatic 
efforts through the Six-Party Talks led to the September 2005 Joint 
Statement, under which the Six Parties reaffirmed the goal of 
verifiable denuclearization of the Korean Peninsula, and North Korea 
committed to abandoning all nuclear weapons and existing nuclear 
programs. In February 2007, the Six-Party process resulted in North 
Korea's agreement to shut down its Yongbyon nuclear facility in 
exchange for heavy fuel oil and talks aimed at normalization of 
relations with the United States and Japan. President Obama extended 
his hand to North Korea at the start of his administration in 2009. 
Although these engagement efforts have not significantly diminished 
North Korea's belligerence or pursuit of nuclear weapons, they have 
united the international community, including China, against North 
Korea's irresponsible behavior.
    If confirmed, I would continue to support diplomatic engagement and 
ensure that our military provides the deterrence and defense necessary 
to create a stable regional environment where diplomacy can succeed. If 
confirmed, I will also ensure that we have the capabilities necessary 
in the Asia-Pacific theater to deter and, if necessary, defeat, North 
Korean aggression.
                                 ______
                                 
    [The nomination reference of the Hon. Charles T. Hagel 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 22, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Charles Timothy Hagel, of Nebraska, to be Secretary of Defense, 
vice Leon E. Panetta.
                                 ______
                                 
    [The biographical sketch of Hon. Charles T. Hagel, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
            Biographical Sketch of Senator Charles T. Hagel
Education:
        <bullet> Honorary Doctorate Degrees:
                <bullet> Georgetown University, College of William and 
                Mary, Marymount University, Creighton University, 
                Bellevue University, Doane College, Midland Lutheran 
                College, and North Central College

        <bullet> University of Nebraska at Omaha, Omaha, NE
                <bullet> Bachelor of Arts Degree in General Studies, 
                1971

        <bullet> Brown Institute for Radio and Television, Minneapolis, 
        MN
                <bullet> Degree in Radio and Television Broadcasting, 
                1966

        <bullet> Kearney State College, Kearney, NE
                <bullet> January 1965-December 1965

        <bullet> Wayne State College, Wayne, NE
                <bullet> September 1964-December 1964
Employment record:
        <bullet> Vietnam War Commemoration Advisory Committee, 
        Arlington, VA
                <bullet> Chairman, July 2012-present

        <bullet> President's Intelligence Advisory Board
                <bullet> Co-Chairman, 2009-present

        <bullet> Atlantic Council, Washington, DC
                <bullet> Chairman and Board of Directors
                <bullet> February 2009-present

        <bullet> Defense Policy Board
                <bullet> Member, July 2009-present

        <bullet> President's China 100,000 Strong Initiative
                <bullet> Co-Chairman, 2010-2012

        <bullet> Department of Energy Blue Ribbon Commission on 
        America's Nuclear Future
                <bullet> Commissioner, 2009-2011

        <bullet> Georgetown University
                <bullet> Distinguished Professor of National 
                Governance, School of Foreign Service
                <bullet> February 2009-present

        <bullet> Deutsche Bank America, New York, NY
                <bullet> Advisory Board Member
                <bullet> May 2009-present

        <bullet> Corsair Capital, New York, NY
                <bullet> Advisory Board Member
                <bullet> February 2009-present

        <bullet> McCarthy Capital, Omaha, NE
                <bullet> Senior Advisor
                <bullet> February 2009-present

        <bullet> Wolfensohn & Company, New York, NY
                <bullet> Director
                <bullet> March 2009-December 2010

        <bullet> Pfizer Boards, New York, NY
                <bullet> Advisory Board Member
                <bullet> February 2009-December 2010

        <bullet> Zurich Insurance Group, Zurich in North America, 
        Washington, DC
                <bullet> Board of Directors
                <bullet> February 2009-present

        <bullet> M.I.C. Industries, Reston, VA
                <bullet> Special Advisor to the Chairman
                <bullet> March 2009-present

        <bullet> National Interest Security Company, Fairfax, VA
                <bullet> Board Member
                <bullet> March 2009-November 2010

        <bullet> Elite Training & Security, Fairfax, VA
                <bullet> Board Member
                <bullet> March 2009-November 2010

        <bullet> Kasemen, LLC, Fairfax, VA
                <bullet> Board Member
                <bullet> March 2009-November 2010

        <bullet> BP Petroleum, Washington, DC
                <bullet> Advisor
                <bullet> June 2009-March 2010

        <bullet> Chevron Corporation, San Ramon, CA
                <bullet> Board of Directors
                <bullet> April 2010-present

        <bullet> Gallup, Washington, DC
                <bullet> Senior Advisor
                <bullet> July 2011-present

        <bullet> Washington Speakers Bureau, Alexandria, VA
                <bullet> Speaker
                <bullet> February 2009-present

        <bullet> U.S. Senate
                <bullet> 1997-2009, Two Terms, State of Nebraska
                <bullet> Senate Foreign Relations Committee
                <bullet> Senate Banking, Housing and Urban Affairs 
                Committee
                <bullet> Senate Select Committee on Intelligence
                <bullet> Chairman, Senate Foreign Relations 
                Subcommittee on International Economic Policy, Export 
                and Trade Promotion
                <bullet> Chairman, Senate Banking Subcommittee on 
                International Trade and Finance
                <bullet> Senate Banking Subcommittee on Securities and 
                Investment
                <bullet> Chairman, Congressional-Executive Commission 
                on China
                <bullet> Chairman, Senate Climate Change Observer Group
Honors and awards:
        <bullet> Global Leadership Award from the International Student 
        House, 2012
        <bullet> World Affairs Council of Washington DC International 
        Public Service Award in Recognition of Outstanding Global 
        Leadership
        <bullet> 2nd Degree Order of Dostyk Award from the President & 
        Government of Kazakhstan
        <bullet> Vietnam Veterans Memorial Fund's Charles ``Mac'' 
        Mathias Award
        <bullet> Knight Commander's Cross of the Order of Merit of the 
        Federal Republic of Germany
        <bullet> Commander's Cross With Star of the Order of Merit of 
        The Republic of Poland
        <bullet> Brown College Distinguished Alumni Award, 2010
        <bullet> Clifford P. Case Professor of Public Affairs at 
        Rutgers University, 2010
        <bullet> Ralph J. Bunch Award for Diplomatic Excellence from 
        the Association for Diplomatic Studies and Training, 2010
        <bullet> Citigroup Foundation Lecturer at the University of 
        Michigan's Gerald R. Ford School of Public Policy, 2009
        <bullet> Third Annual Eugene J. McCarthy Lecturer at St. John 
        University Minnesota, 2009
        <bullet> Junior Statesman of the Year Foundation Award, 2009
        <bullet> Committee on Education Funding Special Recognition 
        Award, 2009
        <bullet> Aspen Institute Strategy Group Leadership Award, 2008
        <bullet> First annual Cordell Hull Award
        <bullet> Horatio Alger Award from the Horatio Alger Association
        <bullet> Vietnam Veterans of America Legislator of the Year 
        Award
        <bullet> Center for the Study of the Presidency's Distinguished 
        Service Medal
        <bullet> American Farm Bureau Federation's Golden Plow Award
        <bullet> Distinguished Alumni Award from the University of 
        Nebraska at Omaha
        <bullet> Secretary of Defense's Medal for Outstanding Civic 
        Achievement
        <bullet> First World USO Leadership Award
        <bullet> University of Nebraska-Kearney George W. Norris 
        Distinguished Lecturer Award
        <bullet> Congressional Award from the Paralyzed Veterans of 
        America, 2008
        <bullet> United Nations Association of the United States of 
        America's Congressional Leadership Award
        <bullet> Millard E. Tydings Award for Courage and Leadership in 
        American Politics from the University of Maryland, 2008
        <bullet> National Urban League Congressional Leadership Award, 
        2008
        <bullet> Distinguished Service Award for International 
        Statesmanship from the International Relations Council of 
        Kansas City, 2007
        <bullet> Luminosity Award from the Bonnie J. Addario Breath 
        Away from the Cure Foundation, 2006
        <bullet> National Farmers Union Golden Triangle Award, 2006
        <bullet> University of Nebraska at Omaha's Alumni Award for 
        Excellence in Public Service, 2006
        <bullet> Don Wagner Leadership Award, 2006
        <bullet> Omaha World-Herald's 2005 ``Midlander of the Year'' 
        Award
        <bullet> Marlin Fitzwater Excellence in Public Communication 
        Award, 2005
        <bullet> Woodrow Wilson International Center for Scholars 
        Public Service Award
        <bullet> American Association of School Administrators Champion 
        of Children Award 2005
        <bullet> Edmund S. Muskie Distinguished Public Service Award, 
        2004
        <bullet> The Atlantic Council's 2004 Award for Distinguished 
        International Leadership
        <bullet> Fragile X Research Foundation's Research Beacon Award
        <bullet> Boy Scouts of America's Good Scout Award
        <bullet> National Parent Teacher Association's Outstanding 
        Child Advocacy Award and the Committee for Education Funding 
        Special Recognition Award
        <bullet> University Club's William Howard Taft Public Service 
        Award
        <bullet> European Institute's Transatlantic Leadership Award
        <bullet> National School Board Association's Special 
        Recognition Award
        <bullet> Small Business Administration's Nebraska Veterans 
        Advocate of the Year Award
        <bullet> USA Engage Congressional Leadership Award
        <bullet> Housing Policy Council Leadership Award
        <bullet> Neuro-Optometric Rehabilitation Award, 2008
        <bullet> U.S. Chamber of Commerce ``Spirit of Enterprise'' 
        Awards, 2007 and 2008
        <bullet> Washington Coal Club Annual Achievement Award, 2006
        <bullet> 82nd Airborne Division Association's Recognition for 
        the ``National Airborne Day'' Senate Resolution
        <bullet> Membership in the Consumers for World Trade Hall of 
        Fame
        <bullet> Friend of the Farm Bureau Award
U.S. Military honors and awards:
        <bullet> Two Purple Hearts with Oak Leaf Cluster
        <bullet> Army Commendation Medal
        <bullet> Army Good Conduct Medal
        <bullet> National Defense Service Medal
        <bullet> Vietnam Service Medal with Four Bronze Campaign Stars 
        (Vietnam Counteroffensive Phase III 67-68, Tet Counteroffensive 
        68, Vietnam Counteroffensive IV 68, Vietnam Counteroffensive 
        Phase V 68)
        <bullet> Ten Republic of Vietnam Campaign Medals
        <bullet> Two Valorous Unit Awards
        <bullet> Two Combat Infantry Badges
        <bullet> Qualification Badge, Rifle, Sharpshooter
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Charles 
T. Hagel in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Charles Timothy Hagel (Chuck).

    2. Position to which nominated:
    Secretary of Defense.

    3. Date of nomination:
    January 22, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 4, 1946; North Platte, NE.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Lillian Ziller Hagel (Maiden name: Ziller).

    7. Names and ages of children:
    Allyn Elizabeth Hagel (Daughter--22 years old).
    Charles Ziller Hagel (Son--20 years old).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    - University of Nebraska at Omaha; 1969-1971 - Bachelor's General 
Studies
    - Brown Institute for Radio and Television, Minneapolis, MN; 1966 - 
Degree in Radio and TV Broadcasting
    - Kearney State College, Nebraska; Jan. 1965-Dec. 1965
    - Wayne State College, Nebraska; Sept. 1964-Dec. 1964
    - St. Bonaventure High School, Columbus, NE; 1961-1964 - Graduate

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    See Addendum (Part A - Question 9)

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    - Co-Chairman - President's Intelligence Advisory Board
    - Member - Secretary of Defense's Policy Board
    - Co-Chairman - President's China 100,000 Strong Initiative
    - Commissioner - Department of Energy Blue Ribbon Commission on 
America's Nuclear Future
    - Chairman - Vietnam War Commemoration Advisory Committee

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    See Addendum (Part A - Question 11).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    See Addendum (Part A - Question 12).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    U.S. Senate (1996) Nebraska - Elected.
    U.S. Senate (2002) Nebraska - Re-elected.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2007 - Derek Schmidt for Attorney General (Kansas) $1,000.
    2011 - Richard Lugar for Senate (Indiana) $1,000.
    2012 - Glenn Freeman for Congress (Nebraska) $500.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    See Addendum (Part A - Question 14).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    See Addendum (Part A - Question 15).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    The nominee responded and the information is contained in the 
committee's executive files.

    17. Commitment regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, ifconfinned, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
                               Addendums
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Charles T. Hagel.
    This 26th day of January, 2013.

    [The nomination of the Hon. Charles T. Hagel was reported 
to the Senate by Chairman Levin on February 12, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 26, 2013.]


BUSINESS MEETING TO CONSIDER THE NOMINATION OF THE HONORABLE CHARLES T. 
                 HAGEL, TO BE THE SECRETARY OF DEFENSE

                              ----------                              


                       TUESDAY, FEBRUARY 12, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:55 p.m. in room 
SR-222, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
McCaskill, Udall, Hagan, Manchin, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Inhofe, McCain, 
Sessions, Chambliss, Wicker, Ayotte, Fischer, Graham, Vitter, 
Blunt, Lee, and Cruz.
    Committee staff members present: Richard D. DeBobes, staff 
director; Travis E. Smith, chief clerk; and Leah C. Brewer, 
nominations and hearings clerk.
    Majority staff members present: Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; and 
Peter K. Levine, general counsel.
    Minority staff members present: John A. Bonsell, minority 
staff director; William S. Castle, minority general counsel; 
and Anthony J. Lazarski, professional staff member.
    Staff assistants present: Kathleen A. Kulenkampff and 
Mariah K. McNamara.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeff Fatora, assistant to Senator 
Nelson; Jason Rauch, assistant to Senator McCaskill; Casey 
Howard, assistant to Senator Udall; Christopher Cannon, 
assistant to Senator Hagan; Mara Boggs, assistant to Senator 
Manchin; Chad Kreikemeier, assistant to Senator Shaheen; Elana 
Broitman, assistant to Senator Gillibrand; Ethan Saxon, 
assistant to Senator Blumenthal; Marta McLellan Ross, assistant 
to Senator Donnelly; Nick Ikeda, assistant to Senator Hirono; 
Mary Naylor, assistant to Senator Kaine; Jim Catella, assistant 
to Senator King; Joel Starr, assistant to Senator Inhofe; Paul 
C. Hutton IV, assistant to Senator McCain; Lenwood Landrum, 
assistant to Senator Sessions; Todd Harmer, assistant to 
Senator Chambliss; Joseph Lai, assistant to Senator Wicker; 
Brad Bowman, assistant to Senator Ayotte; Peter Schirtzinger, 
assistant to Senator Fischer; Joshua Hodges, assistant to 
Senator Vitter; Charles Prosch, assistant to Senator Blunt; 
Peter Blair, assistant to Senator Lee; and Brooke Bacak, 
assistant to Senator Cruz.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The committee meets today to consider the 
nomination of former Senator Chuck Hagel to serve as the next 
Secretary of Defense.
    We received Senator Hagel's nomination 3 weeks ago. We held 
a hearing on the nomination 12 days ago. Senator Hagel has 
provided the personal and financial information required by the 
committee. He has received letters from the Director of the 
Office of Government Ethics and the Acting Department of 
Defense (DOD) General Counsel certifying that he meets our 
ethics and conflict of interest standards.
    He has responded to our advance policy questions and our 
questions for the record, and for these reasons I believe the 
time has come for the committee to act on this nomination.
    Senator Hagel has received broad support from a wide array 
of senior statesmen and defense and foreign policy 
organizations. At our January 31, 2013, nomination hearing, 
Senator Hagel was introduced and endorsed enthusiastically by 
two former chairmen of this committee, Senator Sam Nunn and 
Senator John Warner. Senator Hagel's nomination has been 
endorsed by five former Secretaries of Defense who served under 
both Democratic and Republican Presidents: Bob Gates, Bill 
Cohen, Bill Perry, Harold Brown, and Melvin Laird.
    He has been endorsed by three former Secretaries of State 
and by six former National Security Advisors. He's received 
letters of endorsement from 9 former ambassadors who worked 
with him on Middle East issues, from 11 retired senior military 
officers, and from 50 retired ambassadors and national security 
officials.
    He's been supported by the major groups of American 
veterans, including the Veterans of Foreign Wars, the Iraq and 
Afghanistan Veterans of America, AmVets, Vietnam Veterans of 
America, and the American Legion. He's received support from 
the Military Officers Association of America, the Foreign Area 
Officer Association, and the Non Commissioned Officers 
Association.
    Senator Hagel's credentials are underscored by his service 
in war and in peace. As a young man, Senator Hagel enlisted in 
the Army and served in Vietnam where he received two Purple 
Hearts, the Army's Commendation Medal, and the Combat 
Infantryman Badge for his service. Senator Hagel served as 
Deputy Administrator of the Veterans Administration (VA) during 
the Reagan administration, and was twice elected to the U.S. 
Senate where he served on the Senate Committee on Foreign 
Relations and the Senate Select Committee on Intelligence.
    Since he left the Senate 4 years ago, Senator Hagel has 
served as chairman of the board of directors of the Atlantic 
Council. The Atlantic Council counts among its other directors 
and honorary directors, seven former Secretaries of State and 
four former Secretaries of Defense, along with numerous other 
senior officials from the administrations of both parties. The 
Atlantic Council is very much a part of the mainstream of 
American foreign policy establishment.
    Much of the time and attention in our committee hearing was 
devoted to a handful of statements that Senator Hagel made over 
the course of his career that raised questions about his views 
on Iraq, Israel, and other issues. Senator Hagel explained or 
clarified these statements and placed them in context. He 
apologized for one remark and told the committee that he would 
say other things differently if he had the chance or were 
making them over.
    Senator Hagel was clear and firm in the positions that he 
takes today and that he will, if confirmed, take as Secretary 
of Defense. In particular, Senator Hagel stated forcefully and 
unequivocally that, first, ``Iran poses a significant threat to 
the United States, our allies, and partners, and our interests 
in the region and globally. Iran continues to pursue an illicit 
nuclear program that threatens to provoke a regional arms race 
and undermine the global nonproliferation regime. Iran is also 
one of the main state sponsors of terrorism and could spark 
conflict, including against United States personnel and 
interests.''
    Second, he is, ``fully committed to the President's goal of 
preventing Iran from obtaining a nuclear weapon.'' All options 
``must be on the table to achieve that goal,'' and his policy, 
if confirmed, will be ``one of prevention, not of 
containment.''
    Third, while he believes engagement is clearly in our 
interests, engagement is not negotiation. He stated, ``I've 
never thought engagement as weakness. I never thought it was 
surrender. I never thought it was appeasement. I think it's 
clearly in our interest. Get the international sanctions behind 
you, keep military options on the table, and if the military 
option is the only option, it's the only option.''
    Finally, he is ``a strong supporter of Israel,'' and 
believes that ``we have a special relationship with Israel,'' 
and if confirmed, he ``will ensure our friend and ally, Israel, 
maintains its qualitative military edge in the region, and will 
continue to support systems like Iron Dome, which is today 
saving Israeli lives from terrorist rocket attacks.''
    Senator Hagel has also recognized the very real risks posed 
to our national security as a result of the unique budgetary 
pressure arising out of cuts previously agreed upon by 
Congress, the budgeting by Continuing Resolution, and the 
impending threat of a sequester. This is what Senator Hagel 
told the committee: ``Sequestration, if allowed to occur, would 
damage our readiness, our people, and our military families. It 
would result in the grounding of aircraft and returning ships 
to port, reducing the Department's global presence and ability 
to rapidly respond to contingencies. Vital training would be 
reduced by half our current plans, and the Department would be 
unable to reset equipment from Afghanistan in a timely 
manner.''
    He continued: ``The Department would reduce training and 
maintenance for non-deploying units and would be forced to 
reduce procurement of vital weapons systems and suffer the 
subsequent schedule delays and price increases. Civilian 
employees would be furloughed for up to 22 days. All of these 
effects also negatively impact long-term readiness. It would 
send a terrible signal to our military and civilian workforce, 
to those we hope to recruit, and to both our allies and 
adversaries around the world.''
    Some members of this committee strongly oppose President 
Obama's foreign policy, but regardless of how we may feel about 
the President's policies, our vote on Senator Hagel's 
nomination will not change those policies. If there is a risk 
here, it is that the defeat of this nomination will leave the 
Department of Defense leaderless at a time when we face immense 
budgetary challenges and our military is engaged in combat 
operations overseas. Such an absence of senior leadership would 
be unlikely to benefit either our national defense or our men 
and women in uniform.
    I would add, given the recent explosion of a nuclear device 
by North Korea, the delay in adopting this nomination and 
approving it, I think, will send the exact wrong message to 
North Korea.
    The President needs to have a Secretary of Defense in whom 
he has trust, who will give him unvarnished advice, a person of 
integrity, and one who has a personal understanding of the 
consequences of decisions relative to the use of military 
force. Senator Hagel certainly has those critically important 
qualifications, and he is well-qualified to lead the Department 
of Defense.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. Let me first of 
all say I have said many, many times, going back to my first 
meeting with Senator Hagel when he was first elected, how much 
I admire his service to his country, the job that he did, his 
Purple Hearts, and all of that. The question is, in my mind, is 
that and that alone, enough justification for confirming him to 
the nomination for the Secretary of Defense.
    Now, I also listened, Mr. Chairman, and what you said was 
accurate in terms of what he said now during these hearings. My 
problem is that is not what he lived in the past.
    I guess I was the first one who decided that I was going to 
oppose him, his nomination, and that was before we knew nearly 
as much as we know today. At that time, I was aware that he was 
one of two Senators who voted against sanctions against Iran. 
He was one of four Senators who voted against labeling or 
declaring the Iranian Revolutionary Guard (IRG) as terrorists. 
He was one of four who did not sign a letter, and I remember 
that because I helped take the letter of solidarity around to 
the various Senators. He was one of only four who did not sign 
that.
    I was also concerned about the Global Zero Movement. It 
sounds real good. We want a nuclear-free world. The problem is, 
and I have heard all of his answers to this, but the group that 
he is a part of is for, if necessary, unilaterally doing away 
with our nuclear capability. I was concerned with the fact that 
arguably you could say that Iran could be one of the most 
severe of the terrorist type of states. They have said things 
like, ``we want to wipe Israel off the map. Israel is a 
cancerous tumor in the heart,'' and ``America is rotten from 
the bottom up,'' all these things. Yet they, that country, is 
endorsing his confirmation.
    Lastly, I have mentioned this several times. It was Senator 
Cruz who showed us, Mr. Chairman, and I want to tell you how 
much I personally appreciate your bending the rules a little 
bit to allow him to put the Al Jazeera video up, where he 
agreed with Al Jazeera's comments about Israel committed war 
crimes, Israel committed sickening slaughter, and America is 
the world's bully.
    I just cannot for those reasons--and others have other 
reasons, but those are the reasons that I opposed him. I still 
oppose his confirmation. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe. Now, what we are 
going to do is give everybody an opportunity to make a 
statement. We will then vote. The time of the vote will be 
determined by how many of us want to make statements. I cannot 
set that time yet until we get a feel for how many members want 
to make statements. What I will do, and I have not had enough 
chance to chat with Senator Inhofe on this in terms of the 
specific time, but my inclination is to say that we should make 
statements within a time limit of 8 minutes. Would that sound 
fair?
    Senator Inhofe. Very fair.
    Chairman Levin. Thank you. I am not urging everybody to 
speak or to use their 8 minutes, by the way. That I hope was 
not implied by my decision. After we get a feel again for about 
how many want to speak, then we will try to set a fixed time 
later on this afternoon so that everybody will be given perhaps 
20 minutes or so warning at least as to what that fixed time 
is.
    We will do the best we can, and now call upon Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. I will try to set 
the example by taking much less than 8 minutes.
    As you pointed out, some of the most respected experts on 
foreign policy and national defense policy in the United 
States, who have served both Republican and Democratic 
presidents, are strongly and enthusiastically supportive of 
Senator Chuck Hagel's nomination to be Secretary of Defense: 
Bob Gates, Bill Cohen, Madeleine Albright, Bill Perry, Brent 
Scocroft, Ryan Crockett, and Thomas Pickering.
    These ladies and gentlemen have represented the United 
States' interests through a lifetime of service. They are, I 
think, some of the strongest evidence of the support and the 
confidence that they have and we should have in Senator Hagel's 
nomination to be the Secretary of Defense.
    There has been a lot of discussion particularly about his 
approach to our strong historic partnership with the state of 
Israel. I was particularly struck by the words of Deputy 
Israeli Foreign Minister Danny Ayalon. He is the former 
ambassador to the United States. He is now one of the senior 
members of the foreign ministry. He has said, ``I have met 
him,'' Senator Hagel, ``many times, and he certainly regards 
Israel as a true and natural U.S. ally.'' That is coming from 
someone who is a serving member of the Israeli Government. I 
think that is the case, and that is what his lifetime of effort 
as a Senator, as an individual, as a business leader points 
out.
    I would just conclude by echoing the point that the 
chairman made. This is a very dangerous moment--I do not have 
to remind anyone in this room--for us. We are facing budget 
issues. We are facing national security issues. We are in the 
process of our retrograde operations in Afghanistan. Just 
within hours ago, the North Koreans detonated a nuclear device.
    This is a time that the men and women of the Department of 
Defense need a Secretary of Defense. I would urge our strong 
support of Senator Chuck Hagel. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I believe that 
Senator Hagel, as far as I can determine, has complied with the 
requirements or the parameters for the information that needs 
to be disclosed to this committee.
    I am somewhat disturbed to hear that today there are two 
more speeches that he had not reported that maybe have just 
surfaced. Yet at the same time, I believe he has complied.
    I do not believe that we should move forward with his 
nomination until questions are answered that Senator Graham, 
Senator Ayotte, and I have asked to be answered.
    For the first time in my political career, I found myself 
in agreement with Mr. Robert Gibbs, who stated on a Sunday 
television show that Senator Hagel's performance before the 
Senate Armed Services Committee was the most unimpressive and 
unfocused that he had ever observed. I agreed with him. It was 
the most unimpressive performance that I have seen in watching 
many nominees who came before the committee for various 
positions. He did not even know that our policy toward Iran is 
not one of containment, had to be corrected by the chairman of 
the committee. Of course, his failure to answer specific 
questions that I asked is very disturbing.
    Let me point out that the surge was an issue of the lives 
of thousands of American service men and women who are serving 
in Iraq. Senator Graham and I and others, not many, were 
harshly critical of the Bush administration, called for the 
resignation of Secretary Rumsfeld when he said that there was 
only a few dead-end kids left in Iraq, and took on our own 
administration, our own President, our own Secretary of 
Defense.
    Then Senator Hagel also thought we were losing, and then 
when the surge was implemented, gave a statement that the surge 
was the worst blunder since Vietnam, and then went on with some 
nonsense about whether Lyndon Johnson was in Cambodia or not. 
He continued to oppose the surge and said that it would fail.
    I think we are all responsible for our record. I will be 
glad and have quite often been pointed out where I have been 
wrong. But for him to fail to agree that what was clearly and 
obviously a success, to me indicates that he really did not 
want to be forthcoming to this committee. I do not think he 
complied with the requirements of answering the questions for 
members of this committee.
    I am aware that some think that it became rather tense. We 
are talking about thousands of young Americans who had their 
lives on the line in Iraq, including some people that--well, 
Senator Hagel's judgment was wrong, continues to be wrong, and 
he refuses to admit that he was wrong on this issue and many 
other issues.
    His gratuitous attacks, for example, saying that President 
Bush was the worst President since Herbert Hoover, of course, 
were just gratuitous attacks on the President of the United 
States.
    But you can only judge somebody by their past performance 
in order to predict what their future performance will be. His 
performance before this committee was the worst that I have 
seen of any nominee for office. He refused to answer a simple, 
straightforward question as to whether the surge was a success 
or not, and whether he supported it or not. That was a key 
moment in the history of this country.
    So, Mr. Chairman, I hope that we will get the answer that 
Senator Ayotte, Senator Graham, and I have asked to be 
answered. I hope that will happen. But I cannot vote to report 
out Senator Hagel's nomination favorably.
    Chairman Levin. Thank you very much, Senator McCain.
    On this list now in order of appearance, Senator Hagan is 
not here. Senator Shaheen, do you wish to make a statement?
    Senator Shaheen. Yes, Mr. Chairman. I think, while I 
appreciate the concerns that have been raised about Senator 
Hagel, and I certainly would like to have seen him be much 
feistier at his hearing, I do think for anybody to suggest that 
he is not qualified, they have not really looked at what his 
background has been.
    He was the Deputy Administrator of the VA. He managed a 
quarter of a million employees during the Reagan years. He 
turned around the United Service Organization when it was in 
financial difficulty. We all know much about his record as 
Senator when he helped to shepherd the 9/11 GI Bill through the 
Senate. He has served on the Defense Policy Board at the 
Pentagon, as co-chairman of the President's Intelligence 
Advisory Board, not to mention all of the things that have been 
said about his service in Vietnam and his heroism as an 
enlisted man.
    I understand that people disagree with his position on 
certain issues, and, therefore, everybody has the right to vote 
in the way that they say. But the concern that I have is the 
suggestion that this man who has served his country really 
since he was a young man and enlisted in Vietnam, is not 
qualified to be the Secretary of Defense, I think is just not 
accurate and reflects certainly a different understanding of 
his background and his experience than I have.
    So I intend to vote for him. I think he will be an 
excellent Secretary of Defense. I hope that we will confirm 
him.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman. I thank the 
members of the committee.
    First, let me just say upfront that I think all of us 
deeply respect Senator Hagel's service to his country in 
Vietnam and his service in this body. We know that there are 
always difficult decisions that you have to make, and I 
certainly respect that service that he has given to our 
country.
    In thinking about this nomination, I certainly come at it 
from a perspective which I understand that the President 
deserves a certain level of deference with respect to who 
serves on his Cabinet. In fact, that is why I voted, for 
example, for my colleague, Senator Kerry, who had an 
overwhelming vote in the Senate, even though he and I probably 
vote very differently on many issues. But certainly he was 
confirmed overwhelmingly in this body.
    I find myself on this nomination in a very different place. 
I very much agree with my colleague, Senator Reed, who was 
here, as he described the state of our country, and the state 
of our national defense, and the challenges we face around the 
world right now. It is a very difficult time and a dangerous 
time around the world.
    One of the first challenges that we face, and I think one 
of the greatest national security threats that we face, is the 
march of Iran toward obtaining a nuclear weapon. I find myself 
in reviewing Senator Hagel's record and also what he said when 
he appeared before us in a very lengthy hearing before the 
committee, to be very much at odds with him on this issue. I 
think also some of his prior positions are at odds with members 
of both sides of the aisle.
    For example, as has been mentioned previously by Senator 
McCain, I was very troubled that he did not clearly know what 
our position was when it came to containment, particularly 
since I believe everyone in this room voted, except for the 
newer members. We recently voted in a vote of 90 to 1 in the 
U.S. Senate explicitly rejecting a policy of containment toward 
a nuclear-armed Iran. Yet, Senator Hagel seemed to believe in 
his first statement that the President had a strong position of 
containment toward Iran. Then he switched his position to say 
that we do not have a position on containment. Finally, of 
course, the chairman corrected him to let him know what our 
position was on containment.
    This is one example, I think, of many within the hearing 
where there were some issues that I felt that he needed to give 
us answers on. This is one of the biggest threats facing the 
world right now. I was deeply troubled by his statements with 
regard to containment. Also, I think if you look at his prior 
history of when he served in this body where he has been on 
sanctions, as has already been described, I think all of us 
here hope that we can stop Iran from obtaining a nuclear weapon 
short of military actions.
    But if you are going to do that, the only way we can do 
that is through sanctions. Yet, when he was in this body, he 
was one of two Senators to oppose sanctions in 2001, again in 
2008 in the Banking Committee. He was one of two Senators to 
oppose sanctions. Then when I asked him during the hearing, 
Senator Reid, the Majority Leader, came to the floor on October 
2, 2008, and brought forward an Iran Sanctions Act that is very 
similar to the one that we have passed since I have been here, 
he blocked unanimous consent for consideration of that before 
this body.
    I think it is important to note that a similar Iran 
Sanctions Act was co-sponsored by Secretary Kerry, Secretary 
Clinton, and then Senator, now President, Obama. This is an 
issue that we have been strongly on that he is really to the 
fringe, I think, of both parties of where we have been on 
sanctions. That troubles me given the threats we face around 
the world right now.
    Of course, he also voted against the Sense of the Senate in 
designating the Islamic Revolutionary Guard Corps as a 
terrorist organization, and as he told us during the hearing, 
because it was part of an elected legitimate Iranian 
Government. I do not think that the people who rose up in 2009 
in the Green Movement, who were persecuted and shot at by the 
Iranian Government, would call that government a legitimately-
elected government, nor would, at the time that he voted 
against designating the Islamic Revolutionary Guard Corps a 
terrorist organization, at the time they were assisting those 
in Iraq that were murdering our troops. So that troubles me 
that he would not think of designating the Guard Corps at that 
time a terrorist organization.
    Two other issues I would like to talk on, and that is we 
are facing grave budget challenges right now. I remember when 
Senator Blunt asked him about a prior statement that he made 
after the Budget Control Act was passed. He was asked about the 
across-the-board cuts made to our military, and he said, 
different than what our Secretary of Defense Panetta has said 
now, that he felt that the Pentagon was bloated and needed to 
be pared down. During our hearing, he said that those were 
statements he made prior to the Budget Control Act being 
passed, but that was not the case. That was later corrected.
    In terms of shepherding the Pentagon, I certainly do not 
think that we want to be in a position of thinking, especially 
in light of the testimony we heard this morning, that the 
Pentagon is bloated or needs to be pared down. I think all of 
us agree here that there are things that we could do better in 
the Pentagon. I know that many of us have worked on things that 
we could do better and more efficient in the Pentagon. But 
sequestration is not the answer to that.
    Finally, hours ago, as Senator Reed mentioned, the North 
Koreans have detonated a nuclear device. Yet a year ago, 
Senator Hagel was a signatory to a report that essentially 
would eliminate a portion of our nuclear triad. We have three 
legs to our nuclear triad, and he was a signator on a report 
that recommended that that would be a manner in which we could 
eliminate a leg of our nuclear triad.
    It seems to me with the North Koreans testing, with Iran 
marching toward a nuclear weapon, that is a deep concern that 
our Secretary of Defense less than a year ago would sign on to 
a report that would state that position.
    Now, during his hearing, he tried to claim that this was 
just an illustration, but that is actually different than what 
the report itself says. The report itself says on the first 
page that these are next steps, are possible and desirable. So 
I was not satisfied with his explanation of this being an 
illustration during the hearing, and I am concerned that is 
really where his viewpoints are. I am concerned that those 
viewpoints will drive the recommendations that he makes to the 
President as the Secretary of Defense.
    So for all those reasons, respectful of his service to our 
country, I just think that with the challenges we face around 
the world right now, I judge him based on his record. I respect 
his service. But also I have to judge him based on his 
performance before us in the Senate Armed Services Committee, 
and I cannot support his nomination.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Hagan.
    Senator Hagan. Mr. Chairman, I want to thank you for the 
fair, open, transparent process that this committee has 
followed as we have considered this important nomination. After 
spending several weeks of closely reviewing his qualifications, 
meeting with him personally, participating in the nomination 
hearing, I will vote for his nomination to become our country's 
next Secretary of Defense.
    Senator Hagel certainly has shared my concerns about the 
serious negative consequences that sequestration would have on 
North Carolina. As we heard at the hearing this morning, it is 
important that our next Secretary of Defense be strong, be an 
advocate for stopping these cuts that would be devastating to 
our military strength.
    I also believe that Senator Hagel will continue to look for 
ways to enhance our military and our intelligence collaboration 
with Israel, one of our most important allies. I appreciate and 
respect Senator Hagel's service to our country as an enlisted 
soldier in Vietnam. It is my hope and expectation that this 
perspective that he has will aid in the support of the many 
servicemembers and their families who call North Carolina home, 
and certainly all of our other States.
    I was pleased to hear his assurances that he will monitor 
and be a helpful partner in getting the answers about the water 
contamination at Camp LaJeuene. Thank you.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman, and thank you, 
Ranking Member Inhofe.
    For the past several weeks, I have carefully reviewed 
Senator Hagel's record. I know Senator Hagel. I met with him 
privately and participated in the committee's hearing, 
questioning in both rounds. Ultimately, while I respect his 
military service, I do not believe he is the right choice for 
this job.
    I am concerned by Senator Hagel's record on important 
topics, and his testimony before this committee did nothing to 
clarify those questions. As many of you have said, this is a 
very dangerous moment for our country. The next Secretary of 
Defense will likely make critical decisions with respect to 
budgeting for national defense that will define its future for 
decades to come: confronting a pre-nuclear Iran, dealing with 
an increasingly belligerent nuclear armed North Korea, and a 
bellicose China. I do not believe he will chart the right 
course for our country, and the effect of his decisions on 
these topics will last for decades.
    I do appreciate the President will nominate candidates that 
hold very different views than I do. My support for Senator 
Kerry's nomination indicates this. But I cannot support a 
candidate whose views are so far afield. As the Washington Post 
editorial board indicated, these positions are far to the left 
of those held by President Obama.
    For those reasons, I cannot support his nomination. Thank 
you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Fischer.
    Senator Donnelly is not here at the moment.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman, Mr. Ranking Member, 
and colleagues. I am honored to serve with you on this 
committee. One of my personal and political heroes, former 
Senator John Warner, appeared and talked about his committee 
service in a most glowing way. He was a decorated war veteran 
of two Service branches, the Navy and the Marine Corps, and he 
was a Secretary of the Navy. But he said his proudest public 
service was his service as a committee member, both as chair of 
this committee and ranking member. I have tried to approach 
this question thinking about Senator Warner and the way he 
approached his job.
    I am going to vote for Senator Hagel's nomination to be 
Secretary of Defense for three reasons. First, the standard I 
think we should apply; second, aspects of Senator Hagel's 
experience and character; and finally, some thoughts about the 
inquiries and objections that others have raised that I have 
taken seriously.
    With respect to standard, I echo the point that Senator 
Ayotte made earlier. I think we owe deference to a President 
for choices to executive positions, and I think that is a very 
important thing to grapple with. When the American public 
chooses someone to be President, they are giving that 
individual a mandate to govern, and that mandate includes the 
assembly of a team that the President feels is the appropriate 
team. Deference is not a rubber stamp. Deference does not mean 
that you cannot vote no. But I think that deference is an 
important thing, and I approach any executive nomination with 
that in mind.
    Moving particularly to Senator Hagel from his experience, I 
view his enlisted service and the fact that he would be the 
first former enlisted man to be Secretary of Defense is an 
incredibly important thing. I want our Secretary of Defense to 
go to sleep every night and wake up every day worrying about 
our men and women, and especially those who enlist. I have no 
doubt, and I do not think that anyone on this committee would 
have any doubt, that that would be his overriding concern. I 
want that to be an overriding concern. He has been a powerful 
veterans advocate in his position with the VA and in his 
service to help revive the United Service Organizations.
    His role in the Senate is very important. This is a job 
that is not an internal management job, but it helps someone to 
have that understanding of the different branches of government 
and the relationship that is the appropriate one between the 
executive and the legislature. I think Senator Hagel will bring 
that to the table.
    Finally, he has private sector leadership, experience in a 
variety of ways, both in a for-profit and the nongovernmental 
organization world. He truly has a well-rounded base of 
experience to bring to the job.
    On the character side, Senator Hagel has shown it again and 
again that he is willing to sacrifice and that he has courage. 
Sacrificing in service, sacrificing for his country again and 
again. He is willing to step up and do it again, and I give him 
credit for that. I think he has shown courage, including the 
courage to say ``I was wrong.'' That is something that is hard 
for me to do in public life. I think it is hard for a lot of us 
to do public or private. But Senator Hagel has had the courage 
and the independence to acknowledge that he was wrong when he 
felt that he was.
    I think what he owes to the President, what any Cabinet 
Secretary owes to the President, is the best advice they can 
give at the time. The President will make the call, but I do 
not want Cabinet Secretaries who are going to be hedging their 
advice based on what they think will be popular or what the 
President will like. I do not have any doubt that Senator Hagel 
will be giving the advice as Secretary that he thinks is the 
right thing, and then trusting the chain of command and our 
Commander in Chief to make the call.
    Finally, on a matter of character, I think that Senator 
Hagel's philosophy is one that understands America's role in 
the world. Our strength is not just military strength. Ever 
since Teddy Roosevelt won the Nobel Prize for brokering the end 
of the Russo-Japanese War, America has played a big role on the 
stage of the globe and an important one. We are exceptional, 
and we are exceptional in the role we play in the world. But we 
get it right when we appropriately balance military strength, 
diplomatic strength, economic strength, and strength of the 
moral example. I think Senator Hagel understands that those all 
have to be in balance, and I appreciate it.
    Finally, a number of tough questions and objections were 
raised, and they were all fair. Senator Hagel said the same 
thing at the hearing, that he did not mind answering for 
anything he had said. Much as I would say he could see some 
things that he might have said better, I feel that pretty much 
every day in public life I can see things that I might have 
said better.
    But while the questions were fair, I think the fair answer 
to them is review the entire record.
    When you first hear that the Senator voted in the Senate 
against the designation of the IRG as a terrorist organization, 
it does make you sit back and wonder why. The day we were 
together, he explained why. Many Senators voted against that 
designation because they believed that there was a potentially 
perilous consequence to designating a department of a 
government as a terrorist organization, that that could, in 
fact, lead to an executive overreach, and potentially be a 
preliminary step toward hostilities or even warlike activity 
without appropriate consultation with Congress.
    I am going to be an incredible stickler on the need for an 
executive to consult with Congress. Things that might serve as 
pretext for executive action need to be avoided. That is why a 
number of other Senators, including Senator Webb, my 
predecessor in this seat, voted against the same IRG 
designation. When that was explained in the context of the 
committee hearing, it made a lot of sense. We might have voted 
differently on it, but he had a credible rationale.
    Finally, I did not view the back and forth over containment 
as Senator Hagel saying that he wants to have a containment 
policy vis-a-vis Iran. We were talking containment and 
prevention shorthand on the floor, and he said he supported the 
President's ideas, policy views about containment. We all know 
the President's policy about containment is we are not about to 
contain a nuclear Iran because a nuclear Iran would jeopardize 
Israel, and would also inspire the very kind of arms race in 
the Middle East that the President and Senator Hagel have 
always been against.
    I think a fair read of that discussion was that he 
understood what the President's policy was. If you read Senator 
Hagel's writings, I think he has been very clear about that, 
that we have no containment policy, that the answer we have to 
containment is we are going to prevent Iran from getting a 
nuclear weapon, and I believe he will do it.
    The questions and objections I think are fair. I think they 
were answered. I am going to support his nomination.
    Chairman Levin. Thank you very much, Senator Kaine.
    Senator Graham.
    Senator Graham. Mr. Chairman, I am often asked what has 
happened to the committee. Nothing. We just disagree on 
occasion. [Laughter.]
    This is a good committee, and we have a good chairman. We 
have a good ranking member. I like my colleagues.
    It is the times in which we live. The Democrats are going 
to get almost universal support by Republicans, and the 
Republicans are going to get almost no Republican support. 
[Laughter.]
    How is that? John Kerry is a good friend, so is Chuck 
Hagel. I find myself disagreeing with Senator Kerry on 
occasion, but I think he is in the mainstream of thinking. I 
think he will do a good job for the country.
    I do not vote against nominees very often. Senator Obama, 
if we use his standard, I think we would all be in pretty good 
shape over here to vote just the lot. No, but we are not.
    At the end of the day, it is just not the one vote about 
the IRG. It is a series of votes and statements that paint an 
unusually disturbing picture. There is the left lane in 
politics, the right line, and the middle lane, and when it 
comes to some of the Iranian-Israeli issues, there is the Chuck 
Hagel lane. He is in a league of his own. There is nobody with 
this kind of series of votes and these series of statements. It 
is just not one thing. I say dumb things every day, but it is a 
series of things, a series of votes, and an edge about him that 
makes many of us very unnerved about his selection at a time 
when the world is on fire.
    Syria is a contagion that is going to take the King of 
Jordan down, and if these press reports are true about our 
policy in Afghanistan, we are going to have 8,000 troops left 
behind, 41 percent below the commander's recommendation. We are 
telling the enemy we will be down to 1,000 by 2017. Afghanistan 
will fall apart in 18 months.
    The next Secretary of Defense is going to have to deal with 
a world on fire, and I just believe that the testimony of 
Senator Hagel was not reassuring. I do not think he came across 
clear and convincing, that he understood our policies toward 
Iran. The fact that you do not understand why and you cannot 
clearly articulate the bad news for America if the Iranians get 
a nuclear capability, sharply and to the point, is unnerving 
for the times in which we live in.
    This committee has a bipartisan reputation of holding 
Presidents accountable. I joined with the chairman and Senator 
McCain and many others to look into the abuses of the Bush 
administration when it came to interrogation techniques. I hope 
my colleagues on the other side will hold the Obama 
administration accountable for what I think was a complete 
breakdown of leadership when it comes to Benghazi. We just 
cannot investigate Republicans. We are going to have to hold 
both parties accountable and both Presidents accountable, 
regardless of party.
    Mr. Chairman, you are a good chairman. This committee will 
get over this aberration and we will get back to doing 
business. We will find common ground regarding sequestration, I 
hope. But the reason I am voting against Senator Hagel's 
nomination is that there are very few people with his voting 
record when it comes to Iran and Israel. There are very few 
people who have been this wrong about so many different things.
    I cannot in good conscience support this nomination because 
I think it is sending the worst possible signal to our friends 
and our enemies alike. Thank you.
    Chairman Levin. Thank you, Senator Graham.
    Senator King.
    Senator King. Thank you, Senator. As I think about this, I 
approach it as if we are doing a hiring exercise. The 
President, of course, makes the nomination, but we are acting 
in an impartial capacity.
    When I hire somebody, the first thing I look at is 
experience, and as I mentioned at the hearing, I think Senator 
Hagel's experience as an enlisted man is important, 
particularly when we are going into an era where a lot of the 
responsibility of the Defense Department is going to be dealing 
with people returning from combat, dealing with soldiers--men 
and women--who have been in combat in Iraq and Afghanistan. I 
think having somebody in the position that he has been 
nominated for, who has been there, who has been on the front 
lines and understands the stresses and the pressures, I think 
it is important. I think it is important for the morale of the 
entire enterprise.
    In addition, he has experience here in the Senate. He has 
experience in managing large organizations. He has experience 
in ongoing questions of public policy. So that is where I 
start, is his experience, look at the resume.
    Second, the next thing I do when I hire somebody is check 
references. The references that you, Mr. Chairman, read at the 
beginning of the meeting, the list of people that are 
supporting him from both sides of the aisle, former Secretaries 
of Defense, people that are a who's who of national security 
policy in the United States, have supported him. These are 
people that know him better than I do, and I put a lot of 
weight on that. When I see people like Bill Cohen, Secretary 
Gates, and Secretary Perry, that carries a lot of weight with 
me. Those are serious people who we know put the interests of 
the United States at a very high level, and they would not be 
recommending someone that they did not feel confident in.
    The third thing, of course, in a process is the interview. 
I think the interview was the confirmation hearing. We had an 
opportunity to question him, and I think Senator Shaheen used 
the word ``feisty''. I think he was not as forceful as he might 
have been. I am not sure how all of us would have done in a 9-
hour hearing or whatever it was. It was a pretty long day that 
day.
    I would say, parenthetically, I remember the containment 
mistake. I remember the moment he made it, and it was a 
mistake. He knew the policy is prevention, not containment. The 
word popped out. He used the wrong word. It was not a 
deliberate statement of a policy difference with the President. 
I would characterize it as a slip of the tongue. The same thing 
on the legitimacy of the Iran Government.
    The point he was making was it is an established 
government. He used the word ``legitimate'', not in the sense 
that it was duley elected and met our standards, but it was an 
established government. As Senator Kaine indicated, I think he 
had a rationale/reason for taking that position because he was 
afraid if he took that vote, as Senator Webb said, it would 
have been used as a license by the administration to take 
aggressive action toward the nation of Iran. I think that was a 
rational policy.
    Another thing I always look for when I am looking to hire 
somebody is character, and this man has character. Mr. 
Chairman, at the beginning of the hearing, you used the phrase, 
``He would give the President unvarnished advice with 
integrity.'' That is a very high quality, very high on my list. 
That is what the President needs is unvarnished advice, not 
somebody who is always going to agree with him, but somebody 
who is going to give him his best judgment and has absolute 
integrity.
    I think it would have been very easy for him to agree with 
Senator McCain in the hearing and avoid that contretemps, but 
was not there, and he did not do it. That shows me some 
integrity.
    Finally, I agree with what other people that have already 
stated. I think our role is not to substitute our judgment for 
the President, not to say this is who we would have necessarily 
hired, but the deference goes to the President to build his 
team. I happen to think Chuck Hagel is a man of great 
integrity, great intelligence, and is the kind of person that, 
I think, will be a strong leader for the Department of Defense, 
and particularly for the men and women who are actually the 
warfighters.
    So I intend to vote for his nomination with confidence and 
enthusiasm.
    Chairman Levin. Thank you very much, Senator King.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Mr. Chairman, I am really concerned about process. I am 
really concerned that this committee vote and this entire 
nomination is being rushed, and that we are being asked to 
vote, maybe forced to vote, before all reasonable requests for 
information have been received.
    I am concerned about two categories, in particular. One is 
financial disclosure and information. I will leave the details 
of that to Senator Cruz because he has been very focused on 
that, but I certainly echo his concerns.
    I want to focus on speeches. One clear category of the 
normal precedent of what the committee asked is speeches the 
nominee has made in the last 5 years. That is standard. That is 
not anything outside the norm. Senator Hagel in response to 
that said he ``conducted an exhaustive search for all of my 
speaking engagements over the past 5 years''.
    After that so-called exhaustive search, he identified 80 
speeches, 29 we have texts for, 51 we do not. So one flag is 51 
speeches he has identified we do not yet have the substance. 
But that is not the biggest flag for me.
    The biggest flag is that we have found six outside speeches 
that he never identified. Our staff has found them. We have a 
lot less information to go on than he did, and we have found 
six additional speeches. Five of those we have just recently 
gotten text or video, and have not been able to review them. We 
have literally gotten those in the last 24 hours. For one of 
those we know video exists. It is the June 13, 2008, keynote 
speech to the Arab-American Anti-Discrimination Committee. We 
know the video exists, but we do not have it yet.
    So my request is pretty simple, that we get that video and 
that we have some reasonable amount of time to review text or 
video of these six speeches and any others that surface. That 
is squarely--squarely--within the information the committee 
always requires. We are just delayed because Senator Hagel did 
not disclose it. We had to find it. So that should not penalize 
us, and we should not reward him.
    Again, my request is simple. We have five speeches, have 
them, but have not reviewed them yet. Gotten them in the last 
24 hours. One we know a video exists. We do not have it yet. So 
I would like to be able to review that with others before this 
committee vote, and I think that is a pretty darn reasonable 
request. I would ask for unanimous consent to submit for the 
record the information regarding these speeches.
    Chairman Levin. It will be accepted.
    Senator Vitter. Mr. Chairman, could I just ask for your 
response to that request?
    Chairman Levin. The question is that we ask of all 
nominees, ``provide the committee with two copies of any formal 
speeches that you delivered during the last 5 years of which 
you have copies,'' and he answered that question.
    Senator Vitter. Mr. Chairman, my point is pretty obvious. 
He answered it.
    Chairman Levin. He did not have copies. He gave us copies 
of everything that he had. You have apparently been able to 
find transcripts of speeches from the organizations to which he 
spoke informally, and that is fine. But he answered the 
question, and there is no reason to believe he did not answer 
it accurately.
    Formal speeches, two copies, last 5 years of which he had 
copies. Unless you believe he had copies and did not provide 
them, then your document will be accepted for the record. But 
that is it.
    Senator Vitter. Mr. Chairman, he also identified a total of 
80 speeches, including speeches which he did not have copies 
of.
    Chairman Levin. That is correct.
    Senator Vitter. My point is these 6 speeches were not on 
the list of 80.
    Chairman Levin. Then he did not remember those speeches. He 
is not trying to hide speeches if he gave us 80 speeches. I 
could not give you a list of every speech I have made in the 
last 5 years, particularly informal speeches. There is no way. 
If I gave you a list which had 90 percent of the speeches that 
I had, I would be doing pretty well. So unless you think that 
he intentionally misled this committee and have any evidence of 
that, we will accept your list for the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Vitter. Putting aside whose fault it was or what 
his intent was--I cannot tell you what his intent was. I can 
just tell you the facts.
    Putting that to the side, is it not reasonable for us to 
review these six speeches we now know about before we vote?
    Chairman Levin. You will have time in the next 24 hours. I 
do not know when the Leader is going to bring this to the 
floor, but you will have time to review any speeches that you 
have access to. But those speeches--you can continue--if there 
is 80 out there that he has spoken to--80 organizations, after 
these 6 come in, then you may discover, hey, there are 2 other 
organizations on that 80 that have found transcripts. This 
could go on forever.
    We need a Secretary of Defense. We have had the use of a 
nuclear weapon in North Korea. We have made every single effort 
to provide all the information which this committee ever 
requires. He has answered this question. Unless you have 
evidence that he has not answered it honestly, we are going to 
proceed.
    Senator Vitter. Just in closing, I think that request is 
very reasonable. I am sorry it is being denied.
    Chairman Levin. Senator Manchin.
    Senator Manchin. I want to thank the chairman and thank the 
ranking member for having this, and I want to confirm 
everything that has been said here. I think that it has been a 
thoughtful process, even though we might disagree. It is 
amazing this process that we are going through right now.
    I had some concerns because I had not known or had met 
Senator Hagel before he was presented. So I heard all the 
different rhetoric that was going on, and I wanted to find out 
for myself. I asked the same question as I am sure most of my 
colleagues had. I wanted to make sure this was a person that 
would not hesitate to defend our country under any 
circumstances.
    I then looked at his character, too, and I remember he and 
I are from the same era. I remember the Vietnam War very well 
at that time and the fear in young people in college about 
getting drafted by the hundreds every day. I remember losing 
some of my classmates. They would go out one time and 6 months 
later be coming back in a box. I remember all that.
    Here is not only a person that didn't wait to get drafted, 
he enlisted. Not only did he enlist, he asked to go to the 
fight. I think that told me right there everything I needed to 
know, that he would not hesitate to defend this country.
    Also, it was said that his testimony, and I was there, and 
I started thinking about the things that we have talked about 
here, it was less than a stellar performance. I am thinking if 
we were all judged on our less than stellar performances as a 
Senator, would we be a Senator today? If it has been a bad day, 
we have all had maybe a less than a stellar performance if that 
is what we are looking at.
    The other thing is, in an executive I know as governor and 
I know most of you all putting your offices together, you are 
going to choose a person that you know that you have confidence 
in, that you believe in, that would follow the orders that you 
are giving. There is nothing that leads me to believe that he 
would have been nominated by the President if the President did 
not have complete trust that he would do that.
    With all of that in mind, and also I asked the question 
directly about Israel because I believe very strongly they are 
truly the greatest ally and the only ally we have in that part 
of the world. I wanted to make sure that his commitment to 
Israel, and I felt very comfortable with his answer, and 
standing by Israel. Also, his commitment that we would do 
whatever we could to prevent Iran from having a nuclear weapon. 
I have no doubt to believe.
    I would say to all of us on this committee, we would have 
to think that either the President or the commitment we have 
made to this date would not be followed through, the thinking 
that he would not follow through on his orders that would be 
given to him. I have not found any reason why I would not 
support Senator Hagel.
    Also, the endorsements that were mentioned. So many people 
from both sides of the aisle came up. If it was going to be a 
political difference that we had on party lines, you would have 
thought that he would have only had maybe Democrats, or if it 
was on the other side, only Republicans, that would have been 
speaking for him. But when I saw Senator Warner come into that 
hearing, and the respect I have for Senator John Warner, a 
Republican from Virginia, I think one of the great Senators, 
that gave me a little bit more confidence, let's put it that 
way.
    I have watched that, the eloquent speeches that have been 
given here. He is an independent thinking Senator, and a lot of 
the things he said, as things that we say, as Senators that are 
elected and represent our States, but to speak our mind. He did 
that, and it seems like now that is being held against him. I 
felt that was unfair.
    So for this commitment, his enlistment, his bravery, his 
willingness to not only fight, but willing to put his life on 
the line. When I look around, how many of us have really had 
that opportunity or privilege of serving in the military, let 
alone being at war and putting ourselves, making the supreme 
sacrifice if called upon.
    Senator McCain, I have the greatest respect, and you know 
that, for you and the service you have given to this country, 
and any of the other members of this. But I would say the 
minority of us have had that opportunity that you had in the 
service and that you have given to this country. That weighs 
heavily on me, too, making that commitment to vote for Senator 
Hagel who has done that.
    So I would hope it does not become a political vote, if you 
will. I would like to see a bipartisan vote, and I intend to 
support him. I appreciate the opportunity to be able to speak 
upon that.
    Chairman Levin. Thank you, Senator Manchin.
    Senator Cruz is next. I do not know--Senator Wicker, I am 
sorry. Did you--were you here after Senator Cruz?
    Senator Wicker. Yes.
    Chairman Levin. Thank you. Senator Sessions, were you--did 
I----
    Senator Sessions. I am not sure about that.
    Chairman Levin. Okay. Senator Sessions----
    Senator Sessions. I am happy to defer to the senior 
Senators. [Laughter.]
    Chairman Levin. You are ahead of Senator Wicker, but not 
ahead of Senator Cruz. Okay. We are going to call on your side. 
It is going to be Senators Cruz, Wicker, and Sessions.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman, and you are going to 
get me in trouble cutting in line in front of----
    Chairman Levin. Better you than me. [Laughter.]
    Senator Cruz. Let me say it is a true honor to have the 
opportunity to serve on this committee which has a long 
tradition of bipartisan cooperation, working in the interest of 
this Nation's national security. I think there are few, if any, 
decisions that will have a greater import than this committee's 
decision confirming or not confirming the Secretary of Defense 
and the potential impact on the national security of the United 
States.
    What I would like to address is my views on the merits of 
Chuck Hagel's nomination, and then also my views on his failure 
to disclose what I think are very relevant financial 
disclosures.
    On the merits, I would like to say at the outset that my 
foreign-policy views are considerably less hawkish than some 
members of this committee. I have real concerns about the 
United States acting as the world's policeman, and I take 
seriously George Washington's admonition that we beware foreign 
entanglements.
    That being said, I also agree strongly with the doctrine of 
peace through strength. I think the surest way to avoid 
military conflict is for the United States to stand strong 
against those who would initiate hostilities, potentially, 
against us.
    Senator Hagel, although I very much respect his personal 
heroism and character and service, putting his life on the line 
defending this Nation, his foreign-policy views laid out over 2 
decades put him, in the words of the Washington Post, no 
conservative publication, near the ``fringe of the Senate''.
    In fact, his long articulated views in the Senate have 
consistently made him the Senator who has expressed the 
greatest degree of antagonism to the Nation of Israel of any 
member of this body and the greatest degree of skepticism 
toward sanctions, toward any firm response to Iran, to Hamas, 
to Hezbollah, to those terrorist organizations that would seek 
to harm or to murder innocent Americans.
    Indeed, we saw with his nomination something truly 
extraordinary, which is the Government of Iran formally and 
publicly praising the nomination of a Defense Secretary. I 
would suggest to you that, to my knowledge, that is 
unprecedented to see a foreign nation like Iran publicly 
celebrating a nomination.
    On the merits, in my view, if Chuck Hagel is confirmed, it 
will make military conflict in the next 4 years substantially 
more likely, because, in my view, Chuck Hagel's being confirmed 
will only encourage the nation of Iran to continue and 
accelerate its program to develop nuclear weapons capacity. If 
that occurs, the chances are far greater that our young men and 
women will be sent into harm's way.
    I don't want to see that happen. I think encouraging those 
who would do harm to this country is not, ultimately, in the 
interest of this Nation.
    That is on the merits. I would also like to address the 
procedural issues.
    Twice, Senator Hagel has been asked to provide additional 
financial disclosures. I would like to focus in particular on 
one request. Senator Hagel was asked to disclose all 
compensation that he has received in excess of $5,000 over the 
past 5 years. That was a request that initially came from six 
Senators. In response to that request, he flatly refused.
    Now, I would like to point out that information is entirely 
within his control. There are no legal impediments to his 
disclosing the compensation he personally has received. Yet, he 
flat-out refused.
    The next iteration, he received a letter from 25 Senators. 
It included every Republican member of this Armed Services 
Committee. It also included the minority leader and the 
minority whip.
    That letter stated that, in our collective judgment, this 
committee should not vote and the full Senate should not vote 
on his confirmation, unless and until he discloses his personal 
financial compensation over the last 5 years.
    I will confess, Mr. Chairman, I was surprised by his 
response. I fully expected him to provide some attempt at 
adequate disclosure in response to that request, and that very 
clear statement that, in the absence of that disclosure, it was 
the judgment of a large number of Senators in this body that 
his confirmation should not come to a vote.
    His letter came back, and it again flatly refused to 
comply. It gave no reason other than that he is not legally 
obligated to turn it over, and, therefore, he will not.
    I will point out that, right now, this committee knows 
absolutely nothing about the personal compensation Chuck Hagel 
received in 2008, 2009, or 2010. We do not know, for example, 
if he received compensation for giving paid speeches at extreme 
or radical groups.
    Now, in my view, given the two letters he received, it is a 
fair inference to assume that he and those handling his 
nomination assembled that information, assembled his 
compensation. The only reasonable inference, I think, is when 
they assembled it, there was something in there that they did 
not want to make public.
    It may be that he spoke at radical or extreme groups or 
anti-Israel groups and accepted financial compensation; we 
don't know. It may be that he received extraordinary payments 
from defense contractors, which I would suggest is a matter of 
conflict of interest this committee and this Senate would be 
interested in.
    We don't know what it was, because he simply said: No, I 
will not tell you the compensation I personally received.
    I will point out, on this question, I agree with Senator 
Harry Reid. When it came to the nomination of John Bolton, and 
a number of members of this body asked for additional 
disclosures from John Bolton, and those disclosures were not 
forthcoming, Harry Reid said the following, ``The 
administration's stonewalling has not only had the effect of 
slowing down the confirmation process, it has also put a 
further cloud over this individual and has--perhaps 
unnecessarily--raised the impression that the nominee and the 
White House have something to hide.''
    I don't know if Mr. Hagel has received funds directly or 
indirectly from foreign sources, from extreme sources, but his 
refusal to provide disclosure, I think, is highly troubling. I 
would suggest every member of this committee and every member 
of this body should stand together in at least insisting on 
adequate disclosure.
    I will make one final point: Some have asked, would you 
make this same request of a Republican nominee? I will point 
out to you, Chuck Hagel is a Republican. I don't know him 
personally, unlike many members of this committee. I simply 
know his record. I can tell you this, whether this nominee were 
nominated by a Democrat or a Republican President, I would be 
very interested to know, and I think the American people would 
be very interested to know, whether a nominee for Secretary of 
Defense has received substantial funds directly or indirectly 
from foreign nations, foreign lobbyists, foreign corporations, 
or foreign individuals. I would certainly ask that of either 
party.
    In fact, I suspect, had Mr. Hagel been nominated by a 
Republican President, there might be considerably more 
agreement on that point.
    So I would ask each of us just to give serious thought to 
our constitutional responsibility to advise and consent. I 
would urge this committee, and the Senate as a whole, not to 
march ahead with such speed that there is not sufficient time 
to assess this nominee.
    Just today, we discovered speeches that he had given that 
he had not disclosed.
    It is a quite mild threshold to ask what compensation has 
he personally received and deposited in his personal bank 
account in the last 5 years. I would suggest that should be a 
relevant concern for every one of us.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cruz.
    As I mentioned before, my answer to the letter on this 
subject is now part of the record.
    The first point that you raise, I said the following, that 
with regard to the demand that Senator Hagel disclose all 
compensation over $5,000 that he has received over the past 5 
years, the standard financial disclosure form, which the 
committee requires all nominees to provide, calls for the 
disclosure of all entities from which the nominee has received 
compensation in excess of $5,000 during the previous 2 years.
    Now, you may want to change the committee's questions. They 
are standard questions. You can take that up at any appropriate 
time with the committee if you want, but it is not going to be 
a separate rule for Senator Hagel than it is for all the other 
nominees. The 2-year disclosure requirement that has been 
consistently applied by the committee is established in section 
102(b)(1)(A) of the Ethics in Government Act. It applies not 
only to all nominees for Senate-confirmed positions, but also 
to all candidates for Federal-elected office.
    My comments about your request for foreign funding are also 
part of the record. They go way beyond what anybody has ever 
requested. I think it is not even feasible, in many of the 
requests that you have made, to answer them.
    But the question that we do ask in part E of the form that 
we ask all nominees to fill out is the following: During the 
past 10 years, have you or your spouse received any 
compensation from or been involved in any financial or business 
transactions with a foreign government or an entity controlled 
by a foreign government? The answer is no.
    Now, you have every right to make a request beyond these 
requests that are required by our rules, but I don't think that 
we ought to deny a vote to a nominee because he has decided not 
to respond to a request that not only goes beyond our rules, 
but, in some cases, goes way beyond our rules.
    Finally, if you wish to modify the form that we ask 
nominees to fill out, that is well and good. But we are not 
going to do that retroactively. We are not going to single out 
one nominee for that. We will either do it for all nominees, in 
which case you can raise this at a committee meeting on 
process. You will be more than welcome to do that. But we are 
not going to single out one nominee for this kind of disparate 
treatment.
    Senator Cruz. Mr. Chairman, may I give a brief response?
    Chairman Levin. You may.
    Senator Cruz. I would point out that these requests are not 
out of the ordinary. In fact, two prior nominees have been 
asked very similar questions.
    When George W. Bush nominated Henry Kissinger to the 9/11 
Commission, this body asked what foreign compensation had his 
firm received. Indeed, a number of prominent members of this 
body, including the majority leader, said they would oppose his 
confirmation unless and until he disclosed any foreign 
conflicts of interest.
    Now, Mr. Kissinger made the decision, rather than disclose 
them, to withdraw, which was a reasonable decision for him to 
make. That is one precedent.
    A second precedent was the nomination of Hillary Clinton 
for Secretary of State. In that instance, questions were 
likewise raised about potential foreign funds, and Secretary 
Clinton did something quite admirable. She voluntarily 
disclosed every foreign donation to the Clinton Foundation, 
even though the committee rules didn't require it, because 
there was a reasonable question that could be raised if foreign 
funds had gone to that foundation.
    I would suggest those two paths are both reasonable paths 
to take. Number one, if reasonable questions are raised about 
financial conflicts of interest in a sensitive national 
security position of the receipt of foreign funds, one position 
is to say, ``I won't make that disclosure, and I will withdraw 
from my nomination.'' I will point out that Henry Kissinger's 
was for an advisory board, not to be the chief civilian officer 
of the U.S. military, a far more important position. Or the 
second route is to provide disclosure enough to make clear 
there is not a foreign conflict of interest.
    Senator Hagel's response is truly unprecedented. I am not 
aware of any precedent where questions have been asked--``Is 
there a foreign conflict of interest?''--where the nominee has 
said, ``I refuse to answer your questions, and, nonetheless, I 
will not withdraw. I expect to be confirmed anyway.''
    I would suggest that sets a dangerous precedent. Indeed, if 
subsequent investigations reveal substantial financial 
conflicts of interest, and this Senate has proceeded with 
unnecessary haste and without giving due time to advise and 
consent on that nomination, I would suggest that each of us who 
did so would bear some significant part of the responsibility 
for that decision.
    Chairman Levin. The precedent, which would be set here, 
would be by your unilaterally changing these rules that we have 
followed. If this nominee, or any other nominee, wishes to 
respond to your request, which goes beyond the rules, they are 
free to do so.
    But we are not going to accept a change in the rules that 
applies to one nominee. If you wish to change these rules, you 
may do so at a procedural meeting of this committee. But we are 
not going to accept your suggestion and innuendo that there is 
some kind of conflict of interest here, because there is no 
evidence of a conflict of interest.
    He has been asked this flat-out question by our committee: 
Have you or your spouse ever represented in any capacity--e.g., 
that is, employee, attorney, business, or political advisor or 
consultant--with or without compensation, a foreign government 
or an entity controlled by a foreign government? His answer is 
no.
    Now, if you have any evidence to the contrary, that is one 
thing. But without any evidence to the contrary, to say that 
you haven't gotten answers to questions which go beyond the 
questions that we ask every other nominee is not going to be 
accepted by this chairman.
    Senator Cruz. Mr. Chairman, you asked for evidence to the 
contrary. I would point to the letter that Mr. Hagel submitted. 
There were 7 private funds that had paid him substantial sums 
of money that 25 Senators asked him about, and he responded. 
The question was, of those private funds that have paid you 
hundreds of thousands of dollars, did they receive foreign 
funds? He responded that for six of those funds, he could make 
the representation that the substantial fees he was paid did 
not directly derive from foreign sources. But for the seventh 
of those funds, a fund called Corsair Capital, which paid him 
$200,000 in the 2 years we know about and, for all we know, 
substantially more in the years in which he has not responded 
to the question, he said he could not even make that 
representation. He could not even say that the $200,000 he 
received did not come directly from a foreign government.
    The question this committee asked--``Have you been paid 
directly by a foreign government?''--I would suggest it is 
every bit as relevant to know if that $200,000 that he has 
disclosed came from a foreign government.
    Now, it may be perfectly appropriate. We might conclude 
that it was benign; it was reasonable. But it is, at a minimum, 
relevant to know if that $200,000 that he deposited in his bank 
account came directly from Saudi Arabia, came directly from 
North Korea.
    I have no evidence to suggest that it is or isn't. But his 
statement was that he could not even tell this committee that 
$200,000 did not come directly from a foreign government. I 
would suggest that it is evidence that, at a minimum, would 
suggest further inquiry is justified.
    Chairman Levin. Senator Cruz, you are free to vote against 
this nominee for any reason you choose, including that he has 
not responded to questions which you have asked beyond the 
questions that this committee asks.
    But let's be clear as to what the question is that this 
committee asked. During the last 10 years, have you or your 
spouse received any compensation from or been involved in any 
financial or business transactions with a foreign government or 
an entity controlled by a foreign government? His answer is no.
    You say you don't have any evidence yes or no to the 
contrary. If and when you come up with any evidence that he has 
not answered this question honestly, I am sure that you will 
provide that to the committee.
    But for the purposes of this proceeding with this 
nomination, your objection is clear on the record. If you come 
up with any evidence, you can supply that to us, that he has 
not answered these questions honestly.
    But we are now going to proceed to call on Senator Nelson.
    Senator Nelson. Mr. Chairman, Senator Cruz has stated his 
opinion, which he is entitled to. But I want to put on the 
record that this Senator feels like that Senator Cruz has gone 
over the line. He, basically, has impugned the patriotism of 
the nominee in your conclusions, which you are entitled to come 
to, about him, in essence, being cozy with Iran. You have also 
stated your opinion that you don't think he has been truthful 
with this committee.
    Now, those are two fairly strong statements. I couldn't 
help but having had the privilege of serving on this committee 
for a while, and seeing the two former chairmen on either side 
of the nominee, and I looked at the former Republican Chairman 
John Warner's face, as some of the questions were asked, as he 
visibly winced.
    There is a certain degree of comity and civility that this 
committee has always been known for. Clearly, in the sharpness 
of difference of opinion, to question, in essence, whether 
somebody is a fellow traveler with another country, I think, is 
taking it too far.
    I would encourage this committee to take the role model of 
its former ranking member, Senator McCain, who can get into it 
hot and heavy, but at the end of the day, he is going to 
respect the other person's motives. I would implore the 
committee to consider that.
    Now, I would just respond on a former question that was 
asked about this Global Zero report. I would simply turn to the 
transcript of the committee hearing, page 79. Senator Sessions 
has asked questions, and Senator Hagel's response at line 10, 
on page 79: ``Thank you, Senator. Let me first correct some of 
your interpretation of what the Global Zero report was and what 
it actually said. First, it did not propose or call for 
anything. It was, in fact, the word specifically used at the 
front end of that report was `illustrative,' proposing nothing 
but laying out different scenarios and possibilities and 
schedules.
    ``And here's the key part of all this--and by the way, this 
was summarized in a letter to President Obama in 2009--
bilateral, never unilateral. Nothing was ever suggested on a 
unilateral basis to take down our arsenal. `Negotiated,' 
`verifiable,' these are terms that were in the report.
    ``As Senator Nunn said in his opening statement--and I have 
alluded generally to this--the mainstream thinking of most 
Presidents we have had in the last 65 years--and I go back to 
Ronald Reagan's comments, as Senator Nunn quoted--was reduction 
of nuclear weapons for the obvious reasons. That is why we have 
engaged in treaties to reduce nuclear weapons. Those were not 
unilateral arrangements; those were bilateral arrangements.''
    I will continue in the transcript on page 121 at line 2, 
where Senator Ayotte asked, ``Here is what is troubling me. You 
have testified before this committee today that you have never 
been for unilateral nuclear disarmament; in other words, 
unilateral actions by the United States of America. Yet this 
report itself, which you call an illustration, it is 
illustration or recommendation, or however you want to frame 
it, is to actually--there are many recommendations in it. One 
of them is to eliminate a leg of the triad, which is the land-
based intercontinental ballistic missile (ICBM). Would you 
agree with that? That is the illustration that is contained in 
this report, or you call an illustration. Is that right?''
    ``Senator Hagel, `I call it an illustration, Senator, 
because that is the term; it is used at the front end of the 
report.' ''
    ``Senator Ayotte, `Well, let me talk about the other terms 
that this report uses, because this report twice, as Senator 
Sessions has asked you, on page 1 and on page 16, says that the 
illustrations for this example given in this report, one of 
which is eliminating a leg of the triad, nuclear triad, could 
be implemented unilaterally. So here is what I am struggling 
with: Why would you ever put your name on a report that is 
inherently inconsistent with what you are telling us today, is 
that you have never been for unilateral disarmament as a 
possibility?' ''
    Senator Hagel's response is, on page 122, ``Well, it is not 
inconsistent, I don't believe, Senator. But you used the term 
`could'. That is a pretty important operative word in the 
report. The report does not recommend that we do these things. 
The report says `could'--illustrative scenarios, possibilities. 
You probably know the other individuals who were involved in 
that report, mainly General Cartwright, the former Commander of 
Strategic Command.''
    I wanted to insert those things into the record from the 
previous hearing.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Cruz. Mr. Chairman, if I may be heard on a point of 
personal privilege?
    Chairman Levin. Let me call on Senator Inhofe.
    Senator Inhofe. I just want to make one observation.
    My friend, Senator Nelson, I think I wrote down the words 
criticizing our Senator there for implying that Chuck Hagel was 
cozy with terrorist-type countries, referring to Iran. Let me 
say, I would say, he is endorsed by them. You can't get any 
cozier than that.
    Chairman Levin. I have been endorsed by people I disagree 
with totally. I don't want people who hate me to ruin my career 
by endorsing me.
    Senator Cruz.
    Senator Cruz. If I may be heard on a point of personal 
privilege, the Senator from Florida leveled to charges directly 
at me, and I would suggest both of those charges are false.
    The first thing the Senator from Florida said is that I had 
impugned Chuck Hagel's patriotism. To the contrary, I have 
repeatedly and explicitly praised his personal character and 
patriotism and service. My focus is entirely on his 
longstanding foreign policy record and his consistent 
opposition to sanctions to any form of direct action dealing 
with those who would cause harm. So in no way, shape, or form 
have I impugned his patriotism. I focused on his foreign policy 
record, which even the Washington Post describes as at the 
fringe.
    Second, the Senator from Florida suggested that I stated 
that Mr. Hagel has not been truthful. To the contrary, my point 
is exactly the opposite, that the question this committee 
asked, whether he has directly received money from foreign 
sources, enables him to answer that question truthfully no, 
while at the same time not disclosing whether the hundreds of 
thousands of dollars he has received have come indirectly from 
foreign sources.
    His answers could be entirely truthful, and yet the example 
I used of Corsair Capital, that money, that $200,000, could 
have come from a foreign nation to Corsair Capital, and he 
could answer the truthfully, no, I haven't received it, because 
it came from an intermediary.
    My point is not that he has lied. It is, rather, that he 
has refused to answer reasonable questions of disclosure. So I 
would suggest, in no way, shape, or form have I intended to or 
have I, in fact, impugned his character. My focus has 
consistently been on his record, which I think is a record that 
is troubling and would be dangerous to the national security 
interests of the country.
    Chairman Levin. The record of the committee will have to 
speak for itself.
    Let me now call upon Senator Wicker.
    Senator McCain. Could I----
    Chairman Levin. Yes, Senator McCain.
    Senator McCain. I just want to make it clear, Senator Hagel 
is an honorable man. He has served his country. No one on this 
committee at any time should impugn his character or his 
integrity.
    Chairman Levin. I think we would all agree with that, I 
hope.
    Senator Wicker.
    Senator Wicker. Let me see if I can reel this back, Mr. 
Chairman. [Laughter.]
    This is not my idea of a good time. We have a Republican 
nominee for Secretary of Defense by a Democratic President. We 
have every Democrat on the committee supporting him. Every 
Republican on the committee with just as heartfelt reason to 
oppose the nomination.
    Chuck Hagel's wife grew up in Mississippi. She has kinfolk 
still there. Presumably, they wonder why I can't support their 
kinsman.
    Mr. Chairman, you say we need a Secretary of Defense, and 
we do. The acts of today by North Korea demonstrates that. What 
is going on in Iran demonstrates that. But we need the right 
Secretary of Defense.
    I have to say, sitting there this week with Secretary 
Panetta, a man who I have served with, a man who I am proud to 
have voted for, I was proud to vote for him at the beginning of 
his term as Secretary of Defense, and here at the end of that 
term, I am just as proud.
    Mr. Chairman, I would be delighted and eager to vote for 
you for confirmation as Secretary of Defense. I would do that 
without hesitation. I would have voted for Senator Warner, 
Senator Nunn. Clearly, Senator Hagel brought the right people 
with them.
    But we need the right Secretary of Defense. Chuck Hagel is 
not the right Secretary of Defense for this time.
    We need a Secretary of Defense who can stand before the 
world and articulate that we reject a policy of containment of 
a nuclear Iran. We need a Secretary of Defense that can stand 
before the world and be clear in making the point that the 
Iranian Government is not a legitimately constituted 
government.
    When Senator Hagel made the misstatement about the 
legitimacy of the Iranian Government, Senator Gillibrand had to 
come back later, explain it to him, walk him back, and help him 
correct that misstatement. We need a Secretary of Defense who 
doesn't need help in that regard.
    Clearly, we need a Secretary of Defense who doesn't need to 
be passed a note saying we are not in favor of a containment 
policy. He got that wrong, and the chairman had to take a third 
stab at it and correct the nominee for Secretary of Defense on 
one of the major issues of the day.
    Now you could say that Senator Hagel had a bad day, and it 
was. It was a troubling performance before this hearing. The 
members of this committee acknowledge that and know that. But 
here is my larger objection. Here, in Chuck Hagel, we have a 
Senator who made a career out of taking a contrary view against 
bipartisan consensus positions that have been held across this 
table and across the aisle and at both ends of this building.
    There has been a bipartisan mainstream national security 
consensus in this Congress on Israel, on our policy with regard 
to Iran, on our entire Middle Eastern policy, backing Jimmy 
Carter's Camp David accords in 1978. Chuck Hagel, without 
question, has made a career out of going in front of the 
cameras, getting invitation after invitation because it was 
good TV, and making it clear that he was outside that national 
bipartisan mainstream on all of these crucial national issues.
    Now, suddenly, he is the nominee, and we are to believe 
that he is squarely in the mainstream of American thought in 
this regard. This is the individual who said the Israeli 
Government essentially continues to play games. He is the 
individual who said he didn't believe in unilateral sanctions 
because they don't work and they isolate the United States.
    A week later, when it is necessary to say something 
different to the Senator from California, he walks that back. 
He is the same Senator who decried the systematic destruction 
of an American friend by the country of Israel and who said 
there is a Jewish lobby in this country that gets its way 
through intimidation, and that results in this Government doing 
dumb things.
    Now when asked by Senator Graham, when asked by me about 
the Jewish lobby, he clearly reiterated that he should not have 
said the Jewish lobby. He should have said the pro-Israel 
lobby, or the pro-Israeli lobby. He told me, ``No, I shouldn't 
have said intimidate. I should have said influence.''
    So there is an Israel lobby that influences. What about the 
dumb things? It finally got to the point where he was just 
unable to tell Senator Graham anything other than he really 
just didn't have anything at all in mind.
    This is a man who has planted himself for 8 years in the 
U.S. Senate clearly, as Senator Graham says, not in the left 
lane, not in the center lane, not in the right lane, but in the 
Chuck Hagel outside the mainstream lane. Let me just tell you, 
my friends, I think we know in our hearts, we could do better.
    Senator King is going to be a wonderful Senator. He says 
this is a job interview. Boy, during that job interview, it 
occurred to me that the prospective employer would say we can 
do better than this. We can do better. The President can do 
better.
    I can name several people in this room who could do better, 
and we need to do it for the people of the United States and 
for the security of the United States.
    Chairman Levin. Thank you, Senator Wicker.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    President Obama, when he became President, had campaigned a 
lot on foreign policy and the war in Iraq. What did he do when 
he became President? He turned to the Secretary of Defense of 
President Bush and asked him if he would continue to serve as 
his Secretary of Defense.
    Now I remember when he did that, and I remember the hue and 
cry that went up from many in the President's base. They were 
upset with the President because he had dared to ask Secretary 
Gates to stay on. President Obama weathered that criticism 
because he wanted the advice and the counsel of Secretary 
Gates.
    This is a President who was just reelected by the American 
people. As much as some people in this room don't like it, he 
was elected President of the United States by the American 
people, and he has selected an honorable veteran, a Republican, 
who has served our country in various capacities, including 
this body.
    He has a resume that qualifies him. He has a character that 
until today I assumed was not questioned on either side of the 
aisle and references embraced by an impressive bipartisan group 
of leaders in national defense, including the former chairman 
of this committee and ranking Republican of this committee, who 
is revered by both sides of the aisle. Not only did he 
introduce him, he warmly embraced him and endorsed him.
    Now we have had the same set of disclosure rules in this 
committee for 25 years, same set of rules. We have applied 
these rules across the aisle, didn't matter whether it was a 
Republican or a Democrat.
    During this period of time, we have confirmed Secretaries 
Carlucci, Cheney, Aspin, Perry, Cohen, Rumsfeld, Gates, and 
Panetta, as well as thousands of other nominees for senior 
civilian positions in the Department of Defense. We asked 
Senator Hagel the same questions that we asked all of those 
fine men, and he answered them all. There is a whole section on 
foreign affiliations, and he answered each one of these 
questions on foreign affiliations ``no''.
    There are five different questions that cover the 
waterfront in terms of foreign affiliations. I certainly 
respect my friends across the aisle deeply, and I know we have 
different opinions about this, and I know that there are 
legitimate policy differences here.
    But in this committee, it is my hope that if we have 
someone in front of this committee who at a time when many of 
his generation were running from facing battle, I remember, 
trying to figure out a way to get a deferment, trying to figure 
out a way to use their connections to avoid the battlefield, 
trying to get to Canada. This is a man who stood up and said, 
``Let me go,'' and not only did he go, he served with courage 
on the battlefield.
    Now I am not saying you have to agree with him. I am not 
saying you have to vote for him. But I will say this. I think 
we have to be really careful with inferences that would leave 
the impression that this man would somehow purposely evade or 
purposely mislead this committee as to his relationship with 
any foreign government.
    He has answered these questions clearly and completely. He 
has done everything that we have ever asked a nominee to do. So 
I think it is very troubling that we have gotten close to that 
line.
    I have to tell you, Senator Inhofe, be careful because you 
might have an organization that would endorse you that you find 
abhorrent. Then would I have the right to say you are cozy with 
them? What if some horrible organization tomorrow said that you 
were the best guy they knew?
    The idea that somebody is endorsed by someone else, that 
that somehow signs him up to agree with this country that he 
has acknowledged to this committee is a threat to our Nation, 
that he has acknowledged that he will not be part of any policy 
of containment, that he knows we must stop them from getting 
nuclear weapons, and that they are a state-sponsored 
organization of terrorism. He answered that very clearly to my 
questions.
    I just think, am I sad that this is going to be a party-
line vote? Yes, I am. Senator Graham said that this is an 
aberration. I sure hope so. Because this Nation deserves us 
trying to have it not be a partisan situation on this 
committee. I hope this is an aberration, and I do respect 
everyone who cannot vote to confirm this Secretary.
    But I do think a great deal of deference should be given to 
the Commander in Chief on his selection, and I do think his 
resume, his references, and most importantly, his integrity 
qualify him for this job.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Okay. Let me just add one quick thing. This committee has 
had to deal with difficult issues before, and there have been 
occasions when we have actually split on a party line. We have 
survived those very strongly. We will survive this one, and we 
will be just as strong coming out as we were going in.
    This is a bipartisan committee. We are proud of that 
tradition. That tradition is a lot stronger than any particular 
single vote or any particular single comment. So we will, I am 
sure, I have no doubt about this committee's future 
bipartisanship, as difficult as this vote is.
    Senator Inhofe.
    Senator Inhofe. I will just be very brief here. When you 
talk about the relationship between Senator Hagel and a 
country, and we were talking about the subject, the country is 
Iran. When they are the ones who say that they want to wipe 
Israel off the map, that Israel is a cancerous tumor in the 
heart. They hate America from the bottom of their heart. Yet he 
appears with some of their people on Al Jazeera, where he 
agrees with the statement that Israel has committed war crimes.
    That goes far beyond just being endorsed. Now that needs to 
be in the record, Mr. Chairman.
    Chairman Levin. I think the transcript of that will be put 
in the record because it will be very different in terms of 
many of our impressions of it than the way it has just been 
described.
    But let us proceed, and we will go to Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I respect your chairmanship so much, and we produced the 
defense bill unanimously last year again. It came out of the 
committee. So that does speak well, I think, for our 
bipartisanship.
    I would note that I am uncomfortable. I don't think it is 
necessary that we rush this vote today. We just received 
certain speeches. I haven't seen them. A video apparently of 
one is in existence, but not been produced. There are other 
things that cause me to think we should be slower about this.
    With regard to the committee rules, in the Judiciary 
Committee, like this committee, there are basic questionnaires 
that go to everyone, but that does not limit the inquiry. We 
have had much broader inquiry about individuals when they have 
this problem or this question and people ask. So, I think it is 
not unreasonable to ask that a nominee disclose his income over 
a period of time.
    If I am wrong about that, I will change my view. But I 
don't think that is an unreasonable, burdensome question to ask 
of a nominee who wants to be Secretary of Defense. It has 
certainly been done to others, and just because we limit it to 
2 years doesn't mean on a given circumstance we couldn't ask 
for more. But that is what I would say there.
    Colleagues, we are facing and going to be debating the 
nuclear posture of the United States a great deal. I understand 
the President may talk about it at some length tonight. It does 
not totally surprise me because I believe he comes out of the 
anti-nuclear left, and as one wise observer of all these 
processes over the years said to me recently, ``I am not 
surprised that the anti-nuclear left would propose the things 
that are in the Global Zero report. That has been out there for 
30 or 40 years. What surprises me is that position may be held 
by the Secretary of Defense of the United States of America.''
    My view is that this nominee has been somewhat erratic in 
his positions over time, and I am concerned about that. Senator 
Nelson and I swapped as chairman of the Strategic Forces 
Subcommittee, where nuclear weapons issues are debated, and we 
have been involved in it for some time. The Global Zero report 
that Senator Hagel was one of four other people that signed it 
and produced it, said some very troubling things. It outlines a 
vision for nuclear weaponry in the United States that is 
contrary to our historical position.
    Just about 3 years ago, legislation I proposed actually, 
America's Strategic Posture, a bipartisan report, was produced. 
William J. Perry, who was openly known to favor reducing 
nuclear weapons and continuing to reduce them. James 
Schlesinger, he was vice chairman. Perry, the chairman. 
Schlesinger, vice chairman.
    Other people like James Woolsey, Lee Hamilton, Morton 
Halperin, John Glenn were on this committee. We appointed them 
to see where we were and to produce a bipartisan analysis from 
the best heads in the country about what we should do about our 
nuclear weapons. They did not say change the triad. They did 
not say take weapons off alert. They did not say eliminate all 
ICBMs. They did not say eliminate all tactical weapons. In 
fact, the contrary.
    Now, apparently, Senator Hagel participates in this Global 
Zero report just last year, less than a year ago, and this is 
what it said. ``In our illustrative plan, the United States 
over the next 10 years reduces its arsenal to a maximum of 900 
nuclear weapons and increases the warning and decision time 
over its smaller arsenal.''
    Warning time means you take them off alert so it takes a 
lot longer to get them launched than it would today. It goes on 
to say, ``These steps could be taken with Russia in unison 
through reciprocal presidential directives, negotiated in 
another round of bilateral arms reduction talks, or implemented 
unilaterally.''
    It goes on to make this unusual statement. ``Security is 
mainly a state of mind, not a physical condition, and mutual 
assured destruction no longer occupies a central psychological 
or political space in the U.S.-Russian relationship.'' I don't 
think that is true of where Russia is.
    That was on page 1 of the report. Then it says this about 
bilateral nuclear arms negotiations on page 16.
    Chairman Levin. Would you forgive the interruption, Senator 
Sessions?
    I think I am able to set a time for a vote now if we could 
get some idea about how long you want to speak, and I am not 
trying to limit you. Can you give us an idea about how long? 
Because I just talked to Senator Blumenthal, and I want to ask 
Senator Hirono the same question.
    Senator Sessions. Okay, Mr. Chairman. I just wanted to 
share a few thoughts. About how much time do you want me to 
take?
    Chairman Levin. Is 5 minutes enough?
    Senator Sessions. Seven minutes.
    Chairman Levin. Seven minutes? That is fine.
    Senator Sessions. I will try to finish in 5 minutes.
    Chairman Levin. That is no problem.
    Senator Hirono, may I ask you about how long you want to 
speak?
    Senator Hirono. About 3 minutes.
    Chairman Levin. Three minutes.
    Senator Blumenthal, 2 or 3 minutes? Senator Udall wanted a 
couple of minutes.
    I am now going to schedule a vote for 5 p.m. We will vote 
at 5 p.m. We will hopefully have just about everybody there. If 
not, if somebody is on their way, we can stay here until 
everybody has an opportunity either to vote in person or to 
vote by proxy.
    So 5 p.m., we are going to start the vote.
    Senator Sessions, forgive the interruption.
    Senator Sessions. Let me ask one question, Mr. Chairman. 
There are several members, maybe the majority of the members on 
this side had requested we don't carry this vote tonight, and 
we would like to have it delayed. We recognize that you are the 
majority, and I would just make that request to you.
    Chairman Levin. Thank you.
    We have made a decision. We are going to proceed to a vote 
today. We recognize the request, but we just have to stick to a 
plan, which was a reasonable plan, and we are going to start 
the vote at 5 p.m. Now back to Senator Sessions.
    Senator Sessions. A growing concern on our side about 
moving this nomination so rapidly and a belief that there are 
further disclosures. So I don't know where we will end up on 
that.
    But the report says this. ``The reductions in de-alerting 
proposed under this illustrative plan could be carried out in 
unison with the United States and Russia through reciprocal 
presidential directives, negotiated in another round of 
bilateral arms reduction talks, or implemented unilaterally.''
    It also says, ``A less good approach,'' but still a good 
approach, apparently, ``would be to adopt this agenda 
unilaterally.''
    Senator Hagel was very anxious to tell us the report did 
not call for unilateral actions on behalf of the United States. 
It clearly suggests three times the possibility of unilateral 
actions. I think it just was surprising to me how driven they 
were to reach this conclusion.
    In a footnote, a question was raised about observers, I 
being one of them, who made the point that if we continue to 
draw down our weapons and they get to a certain level, more and 
more nations could see themselves as peer competitors. Far from 
being deterred from building up nuclear weapons, they might see 
it as an opportunity to be on an equal par with Russia and the 
United States.
    I think that is a legitimate concern. They dismiss that and 
say that, ``Global Zero discussions with high-level Chinese 
Government officials and military officials and experts 
indicate strongly that China remains committed to this course 
of a low nuclear policy. China would not race to parity or 
supremacy and would, in fact, take the opposite position to 
join an arms reduction process if the United States reduces 
their arsenals to low numbers.''
    Forgive me, but I don't know who he talked to, and I am not 
sure they would tell him the truth anyway. Matter of fact, I 
doubt it. This is the kind of thing that went into that report.
    General Schwartz, the Air Force Chief of Staff, when asked 
about this report, was not sympathetic. General Schwartz said, 
``I don't agree with this assessment or this study.''
    The current commander, General Robert Kehler, Strategic 
Forces Command, that has the nuclear requirements for the U.S. 
Government, said, ``Regarding the Global Zero report, in my 
view, we have the force size, force structure, force posture 
today that we need for our national security needs.''
    What did the report call for in conclusion? They are not 
shy about saying it. The United States ``could seek to 
achieve,'' this is in the conclusion, ``such reductions in 10 
years and plan to base its arsenal on a dyad,'' no longer a 
triad, ``of nuclear delivery vehicles. The optimal mix of 
carriers would consist of 10 Trident missile submarines''--
there are currently 14--``and 18 B-2 bombers.''
    This would decommission, as they overtly say, 67 B-52 
nuclear bombers. They would be totally eliminated, all the B-
52s.
    Continuing, ``under normal conditions, one half of the 
warhead stockpile, 450, would be deployed on these carriers. 
The other half would be kept in reserve, except during national 
emergency. All land-based intercontinental missiles armed with 
nuclear payloads would be retired.'' All ICBMs would be 
retired. ``And the carriers of nonstrategic warheads, all of 
which would be eliminated.''
    The carriers of nonstrategic, that is tactical nuclear 
weapons, would be eliminated from the stockpile. B-52 bombers 
would be completely eliminated or converted to carry only 
conventional weapons.
    I really think that is an extreme position. It is contrary 
to the established bipartisan commission that we established, 
the concurrent bipartisan policy of the U.S. Defense 
Department. I don't know how you will vote on this nomination, 
but please, ladies and gentlemen, as we go forward, we are 
going to have to be very careful about how we handle strategic 
nuclear weapons.
    There is no doubt our allies are very uneasy. They don't 
understand where we are heading. They don't have the confidence 
that we need them to have. If an ally doesn't think that we are 
going to be there for them, then will they not have a high 
incentive to build a nuclear arsenal themselves to defend 
themselves? That worries me.
    The members of this committee that I talked to and met 
privately said they receive delegations from various countries 
I won't name that we respect and are great allies with are 
really troubled by this.
    I asked a Russian professor on one occasion, ``Would you 
eliminate your tactical nuclear weapons?'' He said, ``Do you 
know how many troops the Chinese have on our border? We are 
never going to eliminate tactical nuclear weapons.''
    We have to be careful about this dream of a world without 
nuclear weapons. Will it encourage Iran? Will it encourage 
North Korea, if we reduce our weapons, to stop producing 
nuclear weapons? If we continue to go down and people lack 
confidence in us, what about countries like Saudi Arabia or 
Egypt or Turkey or other countries around the world, South 
Korea or Japan? Would they not feel further pressure to build a 
nuclear arsenal, and therefore, proliferation would occur?
    Mr. Chairman, I think this is out of the mainstream. It 
represents a rather erratic position. Having been involved in 
this virtually the entire time I have been in the Senate, I 
think it is so far away from where we need to be that I would 
not be able to support my friend, Chuck Hagel.
    I like him. He absolutely deserves our respect for being on 
the ground, in combat, putting his life on the line, serving 
his country. He is a frank and open person. But he has not been 
particularly consistent, in my view, over the years. He has 
taken some views that I think are not good for America, and I 
believe in the Secretary of Defense, the entire world and all 
Americans really need to know that is one person that is 
stable, solid, can be counted on to issue measured judgments, 
and to execute them as promised.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I will be very brief in the interest of time, just to say 
that I will be supporting Senator Hagel.
    I want to thank particularly Senator McCain for his 
comments about Senator Hagel that none of us are seeking to 
impugn his character. In fact, many of the Senators who 
question him commented that he is a good and decent man and 
that they respect his record as a decorated combat veteran.
    He would be the first enlisted man to serve as Secretary of 
Defense and, therefore, I think uniquely qualified to address 
what I view as probably one of the two or three major 
challenges for the next leader of the Department of Defense, 
which is how to attract and retain the best in America, the 
best people in America to serve in our military.
    We all are fond of saying that our people are our greatest 
asset, and it is true. Anybody who has visited our warfighters 
in Afghanistan, as I have done three times--and was privileged 
to go with Senators McCain, Graham, and Ayotte a couple of 
those times--stand in awe, I think, of the work that they have 
done and the sacrifices they have made.
    This country traditionally, after such wars, hollows out 
its military. I am convinced that Senator Hagel is committed, 
passionately committed, to the men and women in uniform and our 
veterans. He has been a veterans advocate, as well as a 
decorated combat veteran himself.
    So I believe there is a reason that we afford the President 
some prerogative in choosing his team, which is, ultimately, 
the President that we hold accountable for his policies. His 
policies, the administration's policies, will have to be 
Senator Hagel's policies, if he is confirmed as the Secretary 
of Defense.
    We should hold the President accountable. I hope to work 
with my colleagues on issues like Iran and Israeli security, 
and as well as working to stop sexual assault, implementing the 
repeal of ``Don't Ask, Don't Tell,'' the dangers and realities 
of suicide, post-traumatic stress disorder, and, of course, the 
looming danger of sequestration. The management of the 
Department of Defense is a huge challenge. I hope that we will 
come together on a bipartisan basis to help whoever the next 
Secretary of Defense is--and I believe he will be Senator 
Hagel--to address those challenges.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    There are good-hearted, right-minded people on both sides 
of the Chuck Hagel nomination question, and I don't think there 
are any minds to be changed at this point. I would like to 
offer a few points about this nominee for the record.
    First, it is important to our national security to have 
leadership in the Department of Defense right now. The Defense 
Department, it is never an easy place to run, but today it 
faces an unusually difficult set of challenges. We need a 
Secretary of Defense in place to manage the fallout from 
sequester, should it come to fruition, as well as the budget 
constraints we face in the future.
    We need a Secretary of Defense in place to guide the 
fundamental rebalancing of our military after the end of the 
war in Iraq, as the winding down of the war in Afghanistan 
continues, and as we pivot to the Pacific. This rebalancing 
must be done while being vigilant about the circumstances in 
North Korea, Syria, North Africa, and elsewhere, as well as the 
large and ever-increasing cybersecurity threats to our data 
systems, power grid, and other infrastructure.
    Second, at the same time, we, as a country, must have a 
larger discussion about the next generation of warfare. How, 
when, and under what circumstances will digital weapons be 
used? There are ongoing questions regarding the use of drones. 
What role will Congress have in overseeing the use of these 
weapons? We need a Secretary of Defense in place to participate 
in these discussions.
    Third, we also need a Secretary of Defense who will look 
after the needs of our soldiers, sailors, airmen, marines, and 
their families. We need a Secretary of Defense who has fought 
for veterans issues and can work with the VA to ensure that 
these two agencies will work in coordination for the benefit of 
our veterans. Senator Hagel has tremendous breadth of 
leadership in both the public and the private sectors.
    I think that we owe tremendous deference to the President 
to put together the team that he can count on. I am confident 
that Senator Hagel will provide the President unvarnished 
advice and that he will ask the kinds of tough questions that 
he has always asked, not necessarily the popular questions.
    Senator Hagel, in my view, is clearly qualified to be 
Secretary of Defense, and I will be supporting his nomination.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hirono.
    Senator Udall.
    Senator Udall. Mr. Chairman, Ranking Member Inhofe, it has 
been a spirited discussion. I intend to proudly vote for 
Sergeant Hagel. He is a patriot. He has earned the right to 
wear two Purple Hearts and many other commendations.
    The enduring case for me was made at his nomination hearing 
by the long list of former Defense Secretaries and National 
Security Advisers, both Republicans and Democrats, who stood 
together and supported Senator Hagel's nomination.
    The enduring image for me will always be Senator Hagel 
flanked by Senators Warner and Nunn, our iconic and respected 
national security leaders.
    Let us vote, Mr. Chairman.
    Chairman Levin. We are almost at the 5 p.m. hour.
    Senator Sessions. Could I say one good thing about our 
nominee?
    Chairman Levin. Please. Great way to end.
    Senator Sessions. I thought I heard him do the containment 
comment. First, I perked up. But my honest evaluation, Senator 
King, is it was just a mis-speaking. I don't think he rejected 
or meant to adopt a containment policy rather than not allowing 
them to have a nuclear weapon.
    I meant to say that earlier. Thank you.
    Chairman Levin. Thank you very much.
    On that very positive note and a generous note, and I say 
that very seriously, this committee is a very strong bipartisan 
committee, as I said before, and we will continue to be, one 
difficult vote notwithstanding.
    The clerk, a quorum being present, the 5 p.m. hour having 
come, we will now consider the nomination of Charles ``Chuck'' 
Hagel to be the Secretary of Defense. Is there a motion to 
favorably report Mr. Hagel's nomination to the Senate?
    Senator Reed. So moved.
    Chairman Levin. Is there a second?
    Senator Nelson. Second.
    Chairman Levin. The clerk will call the role.
    The Clerk. Mr. Reed?
    Senator Reed. Aye.
    The Clerk. Mr. Nelson?
    Senator Nelson. Aye.
    The Clerk. Mr. Udall?
    Senator Udall. Aye.
    The Clerk. Mrs. Hagan?
    Senator Hagan. Aye.
    The Clerk. Mr. Manchin?
    Senator Manchin. Aye.
    The Clerk. Mrs. Shaheen?
    Senator Shaheen. Aye.
    The Clerk. Mrs. Gillibrand?
    Senator Gillibrand. Aye.
    The Clerk. Mrs. McCaskill?
    Senator McCaskill. Aye.
    The Clerk. Mr. Blumenthal?
    Senator Blumenthal. Aye.
    The Clerk. Mr. Donnelly?
    Senator Donnelly. Aye.
    The Clerk. Ms. Hirono?
    Senator Hirono. Aye.
    The Clerk. Mr. Kaine?
    Senator Kaine. Aye.
    The Clerk. Mr. King?
    Senator King. Aye.
    The Clerk. Mr. Inhofe?
    Senator Inhofe. No.
    The Clerk. Mr. McCain?
    Senator McCain. No.
    The Clerk. Mr. Sessions?
    Senator Sessions. No.
    The Clerk. Mr. Chambliss?
    Senator Inhofe. No, by proxy.
    The Clerk. Mr. Wicker?
    Senator Wicker. No.
    The Clerk. Ms. Ayotte?
    Senator Ayotte. No.
    The Clerk. Ms. Fischer?
    Senator Fischer. No.
    The Clerk. Mr. Graham?
    Senator Graham. No.
    The Clerk. Mr. Vitter?
    Senator Inhofe. No instruction.
    The Clerk. Mr. Blunt?
    Senator Blunt. No.
    The Clerk. Mr. Lee?
    Senator Inhofe. No, by proxy.
    The Clerk. Mr. Cruz?
    Senator Cruz. No.
    The Clerk. Mr. Chairman?
    Chairman Levin. Aye.
    The Clerk. Fourteen to 11, and 1 no instruction.
    Senator Wicker. Mr. Chairman?
    Chairman Levin. Let me announce the vote first, if you 
would?
    Senator Wicker. On that, it was my understanding earlier 
that the vote would be left open, and I would just suggest that 
Mr. Vitter may have heard that and might----
    Chairman Levin. We will--thank you.
    Thank you, I did say that, and we will leave the vote open 
for an additional 10 minutes to give Mr. Vitter a chance to 
come and vote in person. If he does so, the vote will then 
reflect that vote in person. If not, it will be as announced.
    I think we all trust each other so that we know what I am 
saying here. Would you just please announce the vote again, 
subject to that one vote change?
    The Clerk. Fourteen ayes, 11 nays, 1 no instruction.
    Chairman Levin. If Mr. Vitter does show up in the next, 
what did I say, 10 minutes, he can then cast a vote. It will 
not change the outcome. (Senator Vitter did not return within 
the allotted time.)
    Given that vote, we will now favorably report the 
nomination of Chuck Hagel to the Senate.
    We thank you all, and we look forward to another wonderful 
year together.
    We are adjourned.
    [Whereupon, at 5:03 p.m., the committee adjourned.]


 NOMINATIONS OF GEN LLOYD J. AUSTIN III, USA, FOR REAPPOINTMENT TO THE 
  GRADE OF GENERAL AND TO BE COMMANDER, U.S. CENTRAL COMMAND; AND GEN 
DAVID M. RODRIGUEZ, USA, FOR REAPPOINTMENT TO THE GRADE OF GENERAL AND 
                  TO BE COMMANDER, U.S. AFRICA COMMAND

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
Hagan, Blumenthal, Donnelly, Kaine, Inhofe, McCain, Chambliss, 
Ayotte, Fischer, and Graham.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Creighton Greene, 
professional staff member; Michael J. Kuiken, professional 
staff member; Gerald J. Leeling, counsel; Peter K. Levine, 
general counsel; William G.P. Monahan, counsel; Michael J. 
Noblet, professional staff member; and William K. Sutey, 
professional staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director, Adam J. Barker, professional staff member; 
Steven M. Barney, minority counsel, Christian D. Brose, 
professional staff member; Thomas W. Goffus, professional staff 
member; and Anthony J. Lazarski, professional staff member.
    Staff assistants present: Kathleen A. Kulenkampff, Mariah 
K. McNamara, and Lauren M. Gillis.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeff Fatora, assistant to Senator 
Nelson; Christopher Cannon, assistant to Senator Hagan; Marta 
McLellan Ross, assistant to Senator Donnelly; Karen Courington 
and Mary Naylor, assistants to Senator Kaine; Lenwood Landrum, 
assistant to Senator Sessions; Todd Harmer, assistant to 
Senator Chambliss; Brad Bowman, assistant to Senator Ayotte; 
Peter Schirtzinger, assistant to Senator Fischer; and Craig 
Abele and Matthew Rimkunas, assistants to Senator Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody, and welcome.
    This morning, the committee considers the nominations of 
two very distinguished officers to two of the most active and 
challenging combatant commands (COCOM): General Lloyd Austin, 
U.S. Army, nominated to be Commander, U.S. Central Command 
(CENTCOM), and General David Rodriguez, U.S. Army, nominated to 
be Commander of the U.S. Africa Command (AFRICOM).
    These two combatant commands, CENTCOM and AFRICOM, are the 
centers of gravity for our military's operations to counter the 
threat of terrorism. Both nominees have served our country with 
distinction, and I want to thank each of you for your decades 
of military service and your willingness to serve, once again.
    I understand that General Austin's wife, Charlene, and 
General Rodriguez's wife, Ginny, are with us this morning; I 
want to acknowledge them and thank them for their sacrifices, 
their support to our nominees throughout the years, which is so 
essential to the success of our nominees. As is the committee's 
tradition, our nominees are invited to introduce any family 
members or friends who may be with them this morning, with 
their opening remarks.
    If confirmed, General Austin will assume command of CENTCOM 
during a critical transition period for our military operations 
in Afghanistan. In the coming months, Afghan forces will assume 
the lead responsibility for providing security throughout their 
country, with coalition forces stepping back to a support role. 
On Tuesday, President Obama announced, during the State of the 
Union Address, plans for drawing down half of the 66,000 U.S. 
troops in Afghanistan this year, a 34,000-troop reduction by 
February 2014.
    The President continues to consider options for a 
significantly reduced U.S. military presence in Afghanistan 
after the end of 2014, which will depend on many things, but, 
in part, on negotiations with the Government of Afghanistan 
over legal protections for our troops. The President has made 
clear that the missions of any residual U.S. military presence 
in Afghanistan after 2014 will be limited to counterterrorism 
operations, and training and advising Afghan forces.
    General Austin would bring exceptional experience to 
overseeing this transition, having commanded U.S. Forces in 
Iraq during the reduction of U.S. Forces and equipment from 
Iraq.
    Just this past weekend, our forces in Afghanistan have had 
a change of command, with General Joseph Dunford replacing 
General John Allen as Commander of the International Security 
Assistance Forces (ISAF) and Commander, U.S. Forces-
Afghanistan.
    I want to take this opportunity to thank General Allen for 
his thoughtful and devoted leadership in Afghanistan, for his 
forthrightness in his interactions with me and the rest of the 
members of this committee.
    When Senator Reed and I visited Afghanistan in January, we 
saw real signs of progress, including the Afghan security 
forces increasingly taking the lead responsibility for 
protecting their country. Good-news stories about Afghanistan 
and the Afghan security forces don't seem to get the coverage 
in the U.S. media that is given to negative stories. For 
example, it was widely reported that only 1 of 23 Afghan 
brigades is rated by ISAF as independent. On the other hand, we 
heard, from our commanders in Afghanistan, that 87 percent of 
operations in Afghanistan's critical Regional Command East are 
carried out solely by Afghan security forces.
    Another mainly success story is now the 18,000-strong 
Afghan Local Police (ALP) program. These community defense 
forces, when coordinated with district-level Afghan National 
Police and Afghan army forces, are more and more effective in 
empowering Afghan communities to defend against Taliban 
intimidation and violence. Plans are being developed to 
increase the authorized size of the ALP program from 30,000 to 
45,000.
    The next CENTCOM commander will also play an important role 
in shaping our enduring partnership with Afghanistan after 
2014, a partnership that I fully support. I am concerned, 
however, by plans to reduce the Afghan National Security Forces 
by a third, starting in 2015, from 352,000 to 230,000 by 2017. 
I believe that any future reductions in the size of the Afghan 
forces should be based on security conditions in Afghanistan at 
that time. As Afghan security forces make progress in providing 
for their country's security, we should reassure them that we 
will continue to support these efforts by deciding that, as we 
withdraw our forces, that there won't be a drawdown in Afghan 
forces.
    Progress in Afghanistan remains fragile. Significant 
challenges to Afghanistan's long-term stability remain. Among 
the greatest threats to stability are the safe havens for 
Afghan insurgents across the Pakistan border, which the 
Government of Pakistan has failed to disrupt or eliminate. In 
addition, the major shortcomings of the Government of 
Afghanistan in delivering governance and fighting corruption 
creates political and economic instability that could 
exacerbate the challenges to the 2014 transition.
    In addition to Afghanistan, CENTCOM must contend with one 
of the most significant issues in our current national security 
debate: the threat posed by Iran and its continued pursuit of 
its nuclear program. As the CENTCOM commander, General Austin 
will be at the tip of the spear with regard to preparing, 
militarily, for the potential of an armed conflict with Iran. I 
share the President's view that all options must remain on the 
table with respect to Iran.
    Iran's hand can be seen throughout the region, including 
its relentless pursuit of instability and fomenting of violence 
through proxies, such as Hamas and Hezbollah, and through its 
own covert activities in the region. Already, destabilizing 
events in Syria, Yemen, Gaza, Egypt, Iraq, and Sudan are made 
worse by Iran's funding and supply of terrorist organizations 
seeking to undermine governments and to spark further conflict 
among sectarian and tribal groups. CENTCOM has a critical role 
to play in leading efforts across the region to counter Iran's 
malign influence.
    Events in Syria continue to deteriorate. The impact of the 
Assad regime's increasing dependence on support from Iran, and 
desperate actions to hold onto power, can be seen in the 
thousands of refugees that flow into the towns and villages of 
Syria's neighbors. While the United States is focused on 
providing humanitarian relief and nonlethal assistance to the 
Syrian opposition, the CENTCOM commander will be asked to 
advise on the situation in Syria, including whether to provide 
lethal assistance to the opposition, whether the United States 
should conduct limited strikes against key Syrian military 
capabilities, and whether the United States should seek to 
build a coalition of nations to take more significant military 
action. These are extraordinarily complex issues that General 
Austin will be asked to share his views on today.
    CENTCOM's area of responsibility (AOR) remains the central 
location of many of the nonstate terrorist threats that our 
Nation faces. In addition to core al Qaeda in Pakistan and the 
reemergence of al Qaeda in Iraq, al Qaeda in the Arabian 
Peninsula remains focused on attacking the United States and 
our interests. Our CENTCOM forces continue to assist our Yemeni 
security partners in preventing al Qaeda from taking advantage 
of areas in Yemen, where the government has limited control. 
The events in Benghazi were a poignant and powerful reminder of 
our need and public expectations for a capability to respond 
quickly to crises around the world. This is one of the major 
evolving situations that General Rodriguez is going to have to 
address, and will consume a great deal of his time. But, it's 
far from limited to Benghazi and to Libya. We have struggled, 
in Africa, to find footholds to allow for responses to the type 
of events that occurred in Benghazi or to allow us to conduct 
day-to-day operations, like intelligence collection. AFRICOM 
has received less, in the way of resources and support, than 
other geographic commands, and this disparity, indeed, may grow 
in a resource-constrained environment. These challenges, 
combined with destabilizing impacts of terrorist and criminal 
networks, will make General Rodriguez's task at AFRICOM among 
the most complicated in the Department.
    An additional matter in the AFRICOM AOR that this committee 
watches closely is the ongoing U.S. support operations in 
Central Africa to assist the multinational effort to remove 
Joseph Kony and his top lieutenants from the battlefield. This 
committee--and Senator Inhofe has been very, very active in 
this effort--has sought to ensure that this mission is 
adequately resourced, including additional intelligence, 
surveillance, and reconnaissance capabilities.
    General Rodriguez, I know that you're familiar with this 
mission, and the committee looks forward to hearing from you 
about it, and to working with you on it and so many of the 
other challenges that you will be facing.
    I'm going to turn the gavel over to Senator Kaine, who has 
agreed to take over, because I must go to the floor.
    I now call upon Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    I join you in welcoming our witnesses. I've had an 
opportunity to get to know them in the past, and visit with 
them personally, and I'm very anxious to move on with this.
    I thank Charlene and Ginny for being here. You're the guys 
who work harder than they do, so we appreciate all your 
sacrifices.
    If confirmed, General Austin, you're going to be in charge 
of overseeing, arguably, the most volatile region of the world, 
and in the midst of a declining defense budget. Just last week, 
Secretary Panetta announced the indefinite delay of the Truman 
Carrier Strike Group deployment in the Middle East, a 
development that was undoubtedly welcomed by the regime in 
Tehran.
    In Egypt, despite the best hopes of the Arab Spring, 
President Morsi and his Muslim Brotherhood Government have 
shown a troubling hostility towards the opposition groups and 
minorities, and have taken an increasing bellicose tone toward 
our ally, Israel. These developments require us to think long 
and hard over what assets we're going to be sharing with them, 
the controversial F-16 transfers, and frankly, I didn't agree 
with that. But, it's a tough area, and I think, if you look 
through that area--and, General Austin, you have Iran, we know, 
that is determined to acquire nuclear weapons capability. But, 
it's been going on for a long time. We've found that our 
intelligence has really been behind the curve on their 
capability of what they've developed so far. It's serious. It's 
a big step, over there.
    In Iraq, our premature withdrawal has directly contributed 
to a deteriorating security situation, and allowed al Qaeda to 
reestablish a foothold in Syria. Assad's reign of brutality has 
now claimed the lives of over 60,000 Syrians, and risks 
spilling into neighboring countries.
    Pakistan, we see a nuclear-armed government teetering on 
collapse, while militant groups, all the military groups, have 
enjoyed that as a safe haven.
    Afghanistan, you'll oversee our operation and manage the 
transition of combat responsibilities to the Afghan security 
forces. Without doubt, we have to make sure that the force 
structure matches the mission and is driven by the facts on the 
ground, and not arbitrary dates. We've talked about this in my 
office. General Rodriguez, you and I have spoken about the 
squeeze in the Middle East. I've often said that it's kind of 
the neglected continent. I was somewhat instrumental when we 
established AFRICOM; and so, it was no longer in three 
different commands, but in one unified command. It's a tough 
area. It's a tough area that has never had adequate resources 
to carry out--what I consider adequately carrying out the 
mission. Certainly, the Chairman mentioned the problem with the 
Lord's Resistance Army (LRA) and that is a problem, and it's 
one that is not just confined to a few people that started in 
northern Uganda; now has spread throughout eastern Congo and on 
up through the Central African Republic, and south Sudan, I 
might add.
    But, it's connected. It's all terrorism, and it's all 
connected together, and it is a serious problem that we are 
going to have to deal with. It's the smallest of the Department 
of Defense's (DOD) regionally focused combatant commands, with 
less than 5,000 boots on the continent. That's a huge 
continent. Your work is cut out for you; we've talked about 
that, you and I, in my office, in somewhat detail.
    While the challenges you will both face are very daunting, 
I'm confident that the two of you are up to the task. But, it's 
going to be heavy lifting.
    As I said to you, General Austin, in my office, are you 
sure you want to do this? You said yes.
    Thank you, Mr. Chairman.
    Senator Kaine [presiding]. Thank you, Mr. Ranking Member.
    General Austin, General Rodriguez, we're ready to hear your 
opening statements and testimony. Again, we appreciate you 
being here, and your service.
    We'll begin with General Austin, and General Rodriguez to 
follow.

STATEMENT OF GEN LLOYD J. AUSTIN III, USA, FOR REAPPOINTMENT TO 
 THE GRADE OF GENERAL AND TO BE COMMANDER, U.S. CENTRAL COMMAND

    General Austin. Good morning, sir, Senator McCain, Ranking 
Member Inhofe, distinguished members of the committee.
    I want to thank you for this opportunity to appear before 
you today. I also want to thank you for the steadfast and 
strong support that you have shown, and continue to show, to 
our men and women in uniform, our Army civilians, and their 
families. It is remarkable, all that they have accomplished 
over the past nearly 12 years of war. It was made possible, in 
no small part, through your personal efforts, and those of your 
colleagues. So, my thanks to all of you.
    I'd like to take a moment to introduce my wife, Charlene. 
I've been incredibly fortunate to have her as my partner for 
more than 30 years. She represents the many wonderful spouses, 
who are the true unsung heroes of these conflicts, as they've 
supported us back home, and, in doing so, enabled our success.
    My thanks to you, Charlene, for your love and support, and 
for your many sacrifices, and Happy Valentine's Day. 
[Laughter.]
    I'm glad, today, to be joined by my teammate, General David 
Rodriguez. He, too, is accompanied by his bride, Ginny, who, 
like Charlene, has done a tremendous amount for our soldiers 
and families over the years.
    Dave and I have served together a number of times over the 
years, to include in combat. He is a gifted leader and a 
decorated soldier, and I'm pleased that he's been nominated to 
command U.S. Africa Command.
    Ladies and gentlemen, it has been a tremendous privilege 
for me to serve my country in uniform for nearly 4 decades, and 
I am grateful to be able to continue to serve. I am honored and 
humbled to have been nominated by the President to serve as a 
commander of CENTCOM. If confirmed, I pledge that I will apply 
all of my experiences and judgment, to the best of my 
abilities, to help preserve and advance our Nation's interests 
in that region of the world.
    General Mattis has led CENTCOM masterfully over these past 
2\1/2\ years. Our Nation owes him a debt of gratitude. The 
impact of his leadership and the efforts of his team during 
this decisive period have been tremendous. If confirmed, I 
intend to sustain and continue this important work; for the 
reality is that, while much progress has been made in the 
CENTCOM area of responsibility, there is still a great deal 
more to be done. Our national interests, and those of our 
allies and friends, demand vigilance as well as our continued 
commitment to do our part to help address the many challenges 
that exist, and to achieve and maintain security and stability 
throughout the Middle East and in South and Central Asia.
    Of course, our foremost priority remains the ongoing 
mission in Afghanistan. Soon, we will be required to complete 
the transfer of responsibilities to the Afghans, and also 
transition our people and equipment out of that country, just 
as we did in 2010 and 2011, when I served there as the 
Commander of U.S. Forces-Iraq. This represents a herculean 
undertaking, and, if confirmed, I will do everything within my 
power to help set the broader conditions for our success in 
this most important endeavor.
    Meanwhile, one must simply watch the evening news to 
understand that the world we live in remains complex and 
extremely volatile. Much of the instability and associated 
challenges reside in the CENTCOM area of responsibility. While 
we have to be pragmatic, we must always be prepared to respond 
to contingencies, whenever and wherever they occur around the 
world. If we truly want to have an effective and lasting impact 
in the region, our friends and allies must be assured of our 
support, and our potential adversaries must understand that 
there will be consequences for their actions.
    As this past decade of conflict has clearly demonstrated, 
success in our many endeavors will require effective 
application of the full continuum of our Nation's instruments 
of power and influence, military as well as economic and 
diplomatic. Having worked closely with senior military and 
civilian officials from the various U.S. agencies and 
organizations, and also having worked closely with leaders from 
other countries and partner nations while serving in Iraq as a 
commander of U.S. Forces, I can personally attest to the 
effectiveness of these kind of collaborations. If confirmed, I 
will continue to cultivate my existing relationships while 
pursuing additional opportunities and partnerships that will 
surely prove beneficial to our efforts.
    Senator Kaine, Senator Inhofe, and members of the 
committee, these are historic times and difficult times. 
However, amidst the many challenges that exist reside 
opportunities, and certainly the shared desire of people to see 
peace and harmony and prosperity achieved, and even in those 
places that have never before experienced them. I fully 
appreciate that the work ahead will be great, and the road will 
not be easy, but, if confirmed, I pledge to give all that I 
have towards ensuring our success, and the success of our 
allies and friends around the world, in this most worthy 
endeavor.
    Thank you again for this opportunity and for your steadfast 
support for our service men and women and their families. I 
look forward to your questions.
    Senator Kaine. Thank you, General Austin.
    General Rodriguez.

STATEMENT OF GEN DAVID M. RODRIGUEZ, USA, FOR REAPPOINTMENT TO 
 THE GRADE OF GENERAL AND TO BE COMMANDER, U.S. AFRICA COMMAND

    General Rodriguez. Senator Kaine, Senator Inhofe, 
distinguished members of the Senate Armed Services Committee, 
thank you for the opportunity to appear before you today.
    I am honored the President has nominated me to serve as the 
next Commander of U.S. Africa Command. If confirmed, I'll look 
forward to working closely with this committee, as well as all 
our joint and interagency, intergovernmental, and multinational 
partners, to address the challenges we face and the 
opportunities to increase stability on this strategically 
important continent. Strong partnerships are key to gaining and 
maintaining stability in the 54 nations of Africa.
    I would also like to thank this committee for the sustained 
support it has provided to our soldiers, sailors, airmen, 
marines, coastguardsmen, and Department of Defense civilians, 
and their families, during this time of conflict. They all 
selflessly serve the Nation, at home and abroad, often in 
harm's way, but always ready to assume their share of the risk, 
and all are eternally grateful for the backing and support of 
the American people and Congress.
    I want to acknowledge the tremendous effort of General Ham 
and his team at the U.S. Africa Command. His leadership helps 
sustain strong partnerships, providing the foundation for our 
continued engagement across the continent and globally. He has 
done a superb job, and I hope that, if confirmed, I can expand 
on the work he has done.
    To General Lloyd Austin, exceptional soldier, leader, and a 
good friend, we have served together throughout peace and war 
in our careers, and have a significant number of deployments 
between us. I'm honored to share this experience with both 
Lloyd and Charlene, and am certain that, if confirmed, Lloyd 
will continue his remarkable service to the Nation and our 
servicemembers.
    I also want to thank my wife, Ginny, for her decades of 
service as an Army wife. Ginny has cared for, and looked after, 
soldiers and their families with energy, empathy, and 
understanding. She's also a wonderful mother to our children: 
Amy, a former Army officer and current student at the 
University of North Carolina; Melissa, a schoolteacher in North 
Carolina; David, who works with the Department of the Navy in 
Washington, DC; and Andrew, an infantry lieutenant in the Army.
    I thank the committee again for allowing me to appear 
before you today, and I look forward to your questions.
    Thank you.
    Senator Kaine. Thank you, General Rodriguez.
    Here's the procedure we will follow. I have a set of 
standard questions, that we ask all witnesses, that I will ask 
both of you to respond to. We'll then proceed to rounds of 
questions, alternating between representatives of the two 
parties; and the rounds of questions will be 7 minutes long. If 
there are additional questions in the second round that members 
want to ask, we'll proceed in that way.
    Let me begin with the standard questions that we ask the 
witnesses. These are to help us exercise legislative and 
oversight responsibilities.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    [Both witnesses answered in the affirmative.]
    Senator Kaine. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    [Both witnesses answered in the affirmative.]
    Senator Kaine. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of this 
confirmation process?
    [Both witnesses answered in the negative.]
    Senator Kaine. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    [Both witnesses answered in the affirmative.]
    Senator Kaine. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    [Both witnesses answered in the affirmative.]
    Senator Kaine. Will those witnesses be protected from 
reprisal from their testimony in any such briefing?
    [Both witnesses answered in the affirmative.]
    Senator Kaine. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    [Both witnesses answered in the affirmative.]
    Senator Kaine. Do you agree to provide documents, including 
copies of electronic communications, in a timely manner when 
requested by a duly-constituted committee, or to consult with 
the committee regarding the basis for any good-faith delay or 
denial in providing such documents?
    [Both witnesses answered in the affirmative.]
    Senator Kaine. With that, we will move to the questions, 
and I will begin with Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank you, General Austin, General Rodriguez, for 
your service to the Nation, and to your families, for 
everything you have done. You may want to take them, for a 
Valentine's Day lunch, to the Senate Cafeteria. Then again, you 
may not. [Laughter.]
    General Austin, as we heard the President say, the other 
night, he is looking to withdraw 34,000 troops from 
Afghanistan. My question is, can that be done in a way that 
does not leave Afghanistan less stable?
    General Austin. Thank you, sir.
    Whereas, I was not a part of the process that helped to 
generate the proposals for the numbers of troops to be drawn 
down, and the rate at which they should be drawn down, I can 
tell you that, from having been a part of that process before, 
the types of things that commanders consider, going into those 
recommendations, really account for whether or not they can 
accomplish the assigned objectives and missions. So, I would 
assume that General Allen and General Mattis, as they went 
through that process, provided their best military advice. I 
would assume that to be the case. But, having not been a part 
of that, I cannot speculate as to whether or not----
    Senator Donnelly. How quickly will you become a part of 
that, and taking a look at that and making that determination?
    General Austin. If confirmed, sir, I will get into that 
right away and confer with General Dunford and the Chairman of 
the Joint Chiefs, and make sure that I have full understanding 
of the objectives, the missions, and the resources that have 
been provided to accomplish those objectives.
    Senator Donnelly. You will give us your unvarnished opinion 
as to the plan, how it works, and whether it will meet your 
strategic objectives as you look at the situation that we're 
in?
    General Austin. I will, sir, and the objectives that are 
outlined by the senior leadership, that have been provided to 
us.
    Senator Donnelly. Thank you.
    General Rodriguez, as we look at your mission, one of the 
things that strikes me is--and, of course, in CENTCOM, too, how 
important it's going to be to build up our partners there so 
that they can be self-sustaining in protecting their own 
nation. How critical a focus is that going to be for you as you 
move into this position?
    General Rodriguez. Thank you, Senator. That's a critical 
focus, because, obviously, the objective is to have Africans 
provide security and stability for themselves. There are a wide 
range of tools that we have to do that, and that will be a main 
focus.
    Senator Donnelly. It seems that that could be the key to 
success, is being in a position where the training we provide 
enables them to stand up on their own.
    General Austin, as we look at the region that you will be 
commanding, one of the challenges has always been Pakistan, and 
our working relationships with Pakistan. As we go through the 
withdrawal of troops from Afghanistan, both men and women and 
equipment, and again, you mentioned that you had not yet been 
fully involved on that plan but, I would think one of the 
things we want to do is continue to work closely with Pakistan 
on that plan, but also have alternative options, if there are 
bumps in the road, as we proceed forward with orders and with 
other things. Are you going to be looking at that as part of 
what you look at when you get the plan in your hands?
    General Austin. Absolutely, sir. I think our relationship 
with Pakistan is critical. It is a key country in the region. 
My goal would be to immediately work to continue to build upon 
the existing relationship, which is on somewhat of a positive 
slope right now, a positive path. I want to continue to build 
on that. Again, they will be key going into the future, sir.
    Senator Donnelly. General Rodriguez, as we look at your 
region, we just saw an extraordinarily tragic situation in 
Benghazi. When we look at the countries there, and we look at 
the challenges that those nations already have in protecting 
themselves--and we often depend on home-nation security for our 
own consulates and embassies. As you look at that, will you be 
asking for a time-and-distance study? How fast can we get to 
our consulate? Where is the closest location we have to that 
consulate? So that you have a plan that can make sure, if our 
consulates are in danger, we will be there to protect them?
    General Rodriguez. Senator, if confirmed, I'll do a 
thorough study of time, distance, as well as capabilities, 
spread throughout the region, who can respond in a timely 
manner and ensure that the Department of State is informed so, 
together, we can make good decisions on how to best support our 
Americans, worldwide, and especially in the African continent.
    Senator Donnelly. Thank you.
    General Austin, as we transition from Afghanistan, the 
military gains in security that we have achieved--with all your 
experience in Iraq, with the transition there--I think one of 
the biggest challenges is, as the military leaves, how do we 
make sure that some of the gains in, not just military, but in 
state functions in Afghanistan, that we're able to hold onto 
them? What experiences that you took away from Iraq can help 
with that in Afghanistan as we move forward?
    General Austin. Certainly, sir, I think our embassy will 
remain engaged and continue to work with the Afghan leadership, 
to help them build capacity and work with issues on their 
political system. But, I think having a competent security 
force helps to create the time and space for an immature 
political system to mature. We would hope that we would have 
the opportunity for that to develop, the Afghans would make the 
right choices, going into the future. Certainly, having 
advisors around to help advise the military also helps to 
influence the rest of the environment, as well. I think the 
activity between the embassy staff and what our military is 
able to do, and keeping the Afghan security forces focused, I 
think that creates some time and space for the political system 
to mature a bit.
    Senator Donnelly. General Rodriguez, General Austin, thank 
you so much for your service. You and your family have 
dedicated your life to our country, and we're incredibly 
grateful to you.
    Thank you.
    General Rodriguez. Thank you, Senator.
    Senator Kaine. The ranking member, Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I agree with the remarks by the Senator, on your service 
and the time, and the fact that I've had the opportunity to be 
with you in the field and at various times. Let's see, General 
Rodriguez, we spent some New Year's Eves together over there; 
so we got to know each other pretty well.
    Anyway, as I said in my opening statement, you guys have 
some really serious problems that you're facing over there.
    Let's start off on AFRICOM, because that's something I was 
perhaps a little more familiar with.
    One of the problems is--and we all go through this, and you 
guys are not immune from it, like crew rest. When you're trying 
to get to places, and you're in Stuttgart, and you have 54 
countries and over 12 million square miles--to adequately 
support AFRICOM--I'm going to ask you a question, in a minute, 
about the resources--but, in terms of time and distance, have 
you thought about how you're going to handle that as you get a 
crisis in sub-Sahara Africa, you're going to have a hard time 
getting there. What do you think about that location?
    General Rodriguez. Yes, sir. I think that's going to 
require a solid coordination between all the interagency 
partners so that we can best understand indications and 
warnings, prior to those incidents happening, so we can best 
posture ourself to be able to respond appropriately. But 
because of the time, the distance, and the basing challenges 
that we have, that's going to continue to be a challenge. I 
will, if confirmed, look at that very carefully, put some 
requirements to the leadership, and then ensure that everybody 
understands the risk that's involved in what our Americans 
throughout the region are taking on.
    Senator Inhofe. Yes, it's something you have no control 
over. That's where it is right now. Frankly, when we started 
AFRICOM, I was pushing very hard for Ethiopia, or someplace, 
for headquarters in Africa. The problem there is the reputation 
of our involvement in Africa, it is being misinterpreted as a 
colonialism type of an approach. But, I have to say this, every 
President that I talk to, including Kikwete, in Tanzania, they 
all have said, ``We recognize that would be easier, but there's 
no way that we can sell it to the people.'' So, that's going to 
be there.
    The reason I bring this up is there is always a lot of 
people here in the United States, members, our good friends in 
the Senate, who would like to move that headquarters stateside. 
I think that it's the best we can do right now, in Stuttgart, 
and I think you would agree that it would be very difficult to 
move that headquarters and operate.
    What do you think about this, have you had time to look and 
see, in terms of resources--as I said in my opening statement, 
we have 5,000 boots on the ground; that's not much for an area 
like that--do you have any comments, going in, right now, as to 
how you're being resourced, particularly with the drawdowns 
that we're talking about at the current time?
    General Rodriguez. Senator, thank you. The challenges 
across the depth and breadth of Africa that we're facing, with 
the resource constraints that we're all living under will be a 
challenge. Again, we just have to make great assessments of 
where we're going to accept risk, to ensure everybody knows and 
understands that. The coordination between the interagency 
partners will be critical as we move forward.
    We all, as commanders, have to help our leadership assess 
the risk throughout the combatant commands. If confirmed, I'll 
execute that, to the best of my ability.
    Senator Inhofe. The Chairman, in his opening remarks, 
talked about the LRA and Joseph Kony. People are now aware of 
that. There was a time when they weren't, when you first got 
involved over there. My question is, if we're successful in our 
operation, in helping them take out Joseph Kony, would you 
continue there, and recognize Kony and the LRA as part of a 
terrorist group that go far beyond what--originally, it was 
just northern Uganda, then spread up to south Sudan and down 
into eastern Congo--that it is widespread, and it is a serious 
problem? I'd like to get your commitment to stay involved in 
that, and recognize it for the problem that it is.
    General Rodriguez. Yes, sir. If confirmed, I commit to you 
that I will continue to watch Kony and the LRA, and the entire 
negative impact it has on the region, as a whole.
    Senator Inhofe. Yes, and there are so many other areas that 
people are not really aware of right now, but one of the things 
that I would like to--I wasn't going to dwell on this, this 
long, but--we made a good decision, back, right after September 
11, when we decided, as a policy for this country, that we were 
going to recognize Africa as the squeeze takes place in the 
Middle East, and the terrorism goes down through Djibouti and 
the Horn of Africa--that our idea was to put in five African 
brigades--to help them, not us--but, to help train the 
Africans, who are very receptive to the idea, so that when that 
happened down there, we wouldn't have to use our forces. It's 
kind of been floundering. I'd like to ask you to make those 
five African brigades a top priority during the time that 
you're spending down there.
    General Rodriguez. Will do, Senator.
    Senator Inhofe. That's good.
    General Austin, as I said a minute ago, and as I asked you 
in my office, are you sure you want this job? It's a tough area 
there. I would just like to ask you, in just whatever time it 
takes, to kind of look at the sequestration and how that's 
going to affect you in that critical region that I outlined, 
area by area, in my opening statement.
    General Austin. Yes, sir. I believe that sequestration will 
have enormously negative effects on the Services' ability to 
resource our efforts. What will happen is that all the Services 
are committed to supporting the current fight, which is what we 
should be doing. Over time, the follow-on deployers will be 
less ready. Our ability to respond to emerging contingencies in 
the region--we'll have less of an ability to do that. We'll 
have less flexibility and fewer options, because of some of the 
pressure now, with pressure on the budget.
    Senator Inhofe. You mentioned four areas, and you called 
them ``four principle levers,'' the last time you were here 
before this committee. They were military-to-military 
engagements, plans and operations, security cooperation 
programs, and posture and presence. Of those four, what are 
going to be impacted the most by sequestration, should it 
become a reality?
    General Austin. Certainly our presence and our posture in 
the region will be impacted. We're seeing that, the leading 
edge of that, with the delay of the deployment of the carrier. 
Again, that begins to take away some of the flexibility and the 
options available.
    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Kaine. Thank you.
    As a schedule accommodation, I'm switching my time spot 
with Senator Nelson, and his questions will be next.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    The delay of the deployment of that carrier--which 
otherwise would go to the Persian Gulf region?
    General Austin. That would be a part of its 
responsibilities as it completes its tour. Yes, sir.
    Senator Nelson. I asked that question because, of course, 
one of the continuing high-visibility questions is what's going 
to happen in Iran. If Iran were to continue with the 
development of a nuclear weapon, we would need all the military 
assets that we could muster. The General has just pointed out 
that a sequester is going to keep that carrier in port, which 
is not a good thing, because if we ever got into it in Iran, or 
if Iran ever started their own aggressive action by mining the 
Strait of Hormuz, we would need all of our Navy assets that we 
could bring to bear. That's a fair statement, isn't it, 
General?
    General Austin. Yes, sir. General Mattis has laid out what 
his requirements are. Those requirements have been vetted and 
approved. Again, if he doesn't get the full complement, then 
he'll have to do some things to mitigate that.
    Senator Nelson. General, what do you see will be the 
remaining force when we are withdrawing, in 2014, from 
Afghanistan?
    General Austin. Sir, I believe that those decisions are 
still being made by the leadership, with the input of General 
Dunford and General Mattis. I'm not a part of that process--I 
don't know what the objectives are that the leadership will 
want to accomplish. That really drives what the force structure 
should look like, going forward.
    Having been a commander in the field, where I was working 
hard with the leadership, to define options, and I found it 
very unhelpful when somebody, who wasn't a part of the process, 
speculated on what the troop strength should be.
    Senator Nelson. In your experience, where you have worked 
with the indigenous forces and the leadership of a country like 
Afghanistan, can you give us your observations of the progress 
of that society, over the course of the last few years? 
Basically, what I'm getting at is, have the Afghani people 
progressed to the point that it's going to be very hard for the 
Taliban to take over, once we leave, and take them back to that 
feudal society that they were? What's your observation?
    General Austin. Sir, first of all, I think that two of the 
key elements that--or three key elements--that kind of go into 
this equation, as to whether or not things will remain on track 
or not, are, number one, do we have a credible security force 
to help guard against the challenges that will no doubt come in 
the future? We've worked hard with the Afghans to build a 
security force of 352,000, in a relatively short period of 
time, and it's still evolving in capability.
    The second thing is that I think the political processes 
have to mature. I think the people have to begin to have faith 
in their leadership, and the leadership has to be inclusive, 
has to reach out to the people, and they have to provide a good 
governing mechanism for the country. That is critical.
    I think the security forces can provide the space for that 
to develop. It's going to take some time.
    The third piece of this is the corruption that we've seen 
in the country, over time they really have to get control over 
that and begin to move that in the right direction.
    I think, when those things happen--and certainly, they're 
capable of happening--then--or working together--then I think 
things will continue to move in the right direction.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Kaine. Thank you, Senator.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Thank you to the witnesses and their wonderful wives, for 
their service to our country. We're very proud to have you 
serving in such positions of responsibility.
    General Austin and General Rodriguez--General Rodriguez, 
you recently served in Afghanistan, as the commander of the 
International Joint Command within ISAF. I'll ask you both the 
same question.
    The President has announced 34,000 troops, more than half 
our force currently serving in Afghanistan, will return home by 
the end of the year. Was this recommendation of the uniformed 
military via the Chairman of the Joint Chiefs? Was this a 
recommendation of the military?
    General Austin. Senator, I don't know what the specific 
recommendation was. As I understand it, the----
    Senator McCain. No one has told you or General Rodriguez 
what the recommendation of the military was?
    General Austin. No, sir, I was not a part of that process. 
I know they----
    Senator McCain. So, you are excluded from knowing what the 
recommendation of the military was?
    General Austin. I was not----
    Senator McCain. Especially given the new responsibilities 
you have.
    General Austin. No, sir, I was not included in that 
process.
    Senator McCain. Did either of you recommend this option?
    General Rodriguez. No, sir.
    Senator McCain. In your best professional military advice, 
is the withdrawal of 34,000 troops this year in line with the 
conditions on the ground, as you saw them?
    General Austin. Sir, I defer to the current commander----
    Senator McCain. You really have no opinion whatsoever about 
whether we should withdraw 34,000, half our force, by the end 
of the year? Is that correct?
    General Austin. Having not been a part of the process, sir, 
I don't think that I should offer an opinion on this, because I 
don't know everything that went into their calculus.
    Senator McCain. General Rodriguez, you feel the same way?
    General Rodriguez. Yes, sir.
    Senator McCain. Even though you recently served there?
    General Rodriguez. Yes, sir. I've been gone for 18 months, 
and things have changed tremendously. I can tell you that I was 
a part of the change in the strategy when we put the surge 
forward there, that the concept of what we were looking to do, 
strategically, is continuing. But, as far as the specific 
situation in the country that warrants those decisions, I am 
not current in that area, sir.
    Senator McCain. So, you wouldn't have any guess as to how 
many forces you believe are necessary to achieve our goals? You 
wouldn't have any. Whew.
    General Austin, you were our commander in Iraq when the 
President decided to end negotiations with Iraqis and withdraw 
all U.S. troops by the end of 2011. Do you think that Iraq is 
more stable today than it was a year ago?
    General Austin. Sir, I'm certainly troubled by some of the 
things that----
    Senator McCain. Do you believe Iraq, today, is more stable 
than it was a year ago?
    General Austin. I think the stability has held, sir. I 
think it's fragile, and it's trending towards being more 
problematic, as we watch what's happening with the Kurd-Arab 
relationships, with the recent Sunni protests. I think a lot of 
that's brought on by a failure to solve some political issues.
    Senator McCain. So, whether we had troops there--a residual 
force there, or not, wouldn't have mattered?
    General Austin. I think that, certainly--if we could have 
continued to advise and assist the Iraqis, I think, certainly, 
it would have continued to make them better.
    Senator McCain. You were present in the room when Senator 
Graham and I asked you, after Maliki asked us, what level of 
troops would we, the United States, want to remain there in 
order to maintain that stability. Do you remember your answer? 
You said, ``We're still working on that.'' Do you remember 
that?
    General Austin. Sir.
    Senator McCain. How long did they work on that, General 
Austin?
    General Austin. Sir, I think we worked with the Iraqi 
leadership all the way up until the point in time when they 
decided that they weren't going to be able to give us the 
protections that we needed to keep our troops there.
    Senator McCain. Because, of course, it was down to 3,500. 
Isn't that correct?
    General Austin. No decision had been made at that point in 
time, sir, because----
    Senator McCain. Wasn't our number back down to 3,500 troops 
left behind? Isn't that an accurate statement? It's written in 
Michael Gordon's book, and it's well--knowledge. Isn't that 
true? You were there.
    General Austin. I was, sir. Again, I presented a range of 
options----
    Senator McCain. But, don't you know that the administration 
position was back down to 3,500? They didn't tell you that?
    General Austin. Sir, I was aware of what the number was. I 
don't recall, specifically, what the final option was, being 
considered.
    Senator McCain. You really don't remember, specifically, an 
important issue like this, that it wasn't 3,500?
    General Austin. Sir, in that range of options--again, since 
we never closed, I've never----
    Senator McCain. The Chairman of the Joint Chiefs of Staff 
testified that the number was down to 3,500. General Dempsey 
did, before this committee. You didn't know that? Even though--
--
    General Austin. Sir--sir----
    Senator McCain.--though you were there?
    General Austin. Sir, I did know what the number was. And--
--
    Senator McCain. And it was 3,500.
    General Austin. It was a small number, yes, sir.
    Senator McCain. Whew. Which is why--and it's been well 
documented--these--the Iraqis decided that to try to obtain 
immunity of over 3,500 troops wasn't worth the effort. You 
believe Iraq is headed in a positive or negative direction?
    General Austin. Sir, I think--again, some of the things 
that we're seeing in Iraq are very troubling, with the Arab-
Kurd tensions, with the Sunni protests. On the other hand----
    Senator McCain. Iranian aircraft overflying Iraq with arms 
for Bashar Assad, for the total estrangement between Barzani 
and Maliki, continued violence in Kirkuk and other areas along 
the border, the vice president of Iraq having to flee the 
country because there's murder charges brought against him. 
Does that indicate to you that Iraq is headed in the right 
direction?
    General Austin. It does not, sir. There are some things 
that are very troubling. There are also some things that I 
think indicate that, if they make the right decisions, they 
have a chance to move in the right direction. They're pumping 
3.3 million barrels of oil a day; they've been challenged, 
several times, in terms of security, but the security forces 
have really held, and they're still loyal to the civilian 
leadership. They haven't fractured. There are a couple of 
things in there that do indicate that, if they begin to make 
the right decisions politically, then I think they have a 
chance of moving in the right direction. But, at this point, 
they've not made those decisions, and it is troubling.
    Senator McCain. General, your predecessor, General Mattis, 
had a well-deserved reputation of speaking truth to power, and 
in testifying before this committee in a frank and honest 
opinion. We have our responsibilities. Our responsibilities can 
only be carried out if we have frank and honest--as you were 
just asked if you would do, at the beginning of the hearing--
opinions. I'm disappointed by your testimony today, that I have 
to draw these facts out from you, that you and I both know are 
facts. I hope the next time you're before this committee, that 
you will be more forthcoming in your answers. We deserve it. We 
have our responsibilities, as well as those that you will 
assume.
    I thank you, Mr. Chairman.
    Senator Kaine. Thank you, Senator.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to join in thanking both of you for your 
extraordinarily distinguished career, and your families for 
their service and sacrifice, as well, and to wish you well in 
your new commands, the next chapter of your military careers.
    General Austin, we had a very informative and important 
discussion yesterday on the subject of sexual assault, with a 
number of my colleagues, and a number of yours, and I would 
like to ask you and General Rodriguez for your commitment that 
you will pursue, as vigorously and aggressively as possible, 
the predatory crime, the vicious criminal offense of sexual 
assault and rape, wherever it occurs under your commands.
    General Austin. Sir, you have my commitment, I will do so.
    General Rodriguez. I will, sir.
    Senator Blumenthal. Thank you.
    Let me ask, by the way, have each of you seen the 
documentary movie ``Invisible War''?
    General Austin. I have seen it, sir.
    General Rodriguez. I have seen it, sir.
    Senator Blumenthal. Will you make it your policy and 
practice that, that movie, among other training aids, is seen 
by all of the commanders, at whatever level, under your 
command?
    General Austin. Yes, sir. As you may know, sir, in the 
Army, we have encouraged our leadership to use that as a 
training tool.
    Senator Blumenthal. General Rodriguez?
    General Rodriguez. Yes, sir, that's correct.
    Senator Blumenthal. I'd like to ask you for more than just 
encouragement, but actually make it a matter of your general 
order, or whatever, however you want to implement within your 
command, that it be used as a training device.
    General Austin. Sir.
    Senator Blumenthal. Thank you.
    General Rodriguez. Yes, sir, it's a requirement.
    Senator Blumenthal. Thank you.
    Let me ask you about--General Austin--focusing on 
Afghanistan. I recently had the privilege of traveling to 
Afghanistan with a number of my colleagues, including Senator 
McCain, who led the trip, and Senator Graham, Senator Ayotte, 
and others. I want to focus, for the moment, on contracting 
there.
    We understand, from the Special Inspector General in 
Afghanistan, that 43 contractors, in effect, are doing business 
with the enemy, but they have not been processed by the Army 
for suspension and debarment, partly because of obstacles--
legal obstacles and others--now in the law of the United 
States; section 841, in particular.
    I'd like your personal commitment, as CENTCOM commander, 
that you will personally review these cases and use the 
authority you have to stop U.S. taxpayers' money from being 
funneled to the Taliban, and that you will help us--Senator 
Ayotte and I, in particular, are working on this issue--help us 
to strengthen the law.
    General Austin. Sir, you have my commitment.
    Senator Blumenthal. Thank you. Very aptly, your prepared 
testimony mentions the importance of ``unity of effort''--
that's your phrase, and I think it's a good one--on the 
battlefield. I think it's equally important that we have that 
unity of effort in stopping American taxpayer money from, in 
effect, aiding the enemy in Afghanistan, where corruption has 
been, unfortunately, so rampant.
    One of the areas where I think section 841 can be applied 
more effectively is in the U.S. Agency for International 
Development (USAID) and State Department aid. I'd like your 
commitment that you will help us, in effect, improve the law in 
that regard.
    Thank you. I understand you have made that part of your 
commitment, that you will help us do that.
    General Austin. Yes, sir.
    Senator Blumenthal. Thank you.
    Let me ask you now, General Austin, about Syria. As part of 
that trip, we visited the refugee camp in northern Jordan, at 
Zaatari. I must say, very powerful and moving experience, to 
see the conditions of the camp, the numbers of children, the 
challenges in providing education, healthcare, basic sanitary 
conditions. I'd like your commitment that you will do 
everything possible to provide a drastic and dramatic increase 
in humanitarian aid to the refugees in Syria and elsewhere, 
besides Zaatari, but also in Jordan, where there are those 
refugee camps.
    General Austin. Sir, I'll do everything within my power to 
work with all the appropriate elements of the interagency to 
ensure that we're doing everything we can to support the 
refugees.
    Senator Blumenthal. Thank you. I think a number of us also 
were impressed by the herculean efforts being made by the King 
of Jordan, and by the Jordanian people, to aid those refugees. 
Just an extraordinary humanitarian effort. But also their 
commitment to aid in military assistance, the freedom fighters 
in Syria.
    Let me ask you, don't you think the United States can 
provide more training and technical assistance, at the very 
least--in terms of communications equipment, logistical aid--to 
the opposition forces in Syria?
    General Austin. Sir, not being in the seat yet, my vantage 
point is that of many people on the outside looking in on this. 
I don't know the specifics, as many specifics as I'd like to 
know, about the opposition, and what is in the realm of the 
possible.
    What I'd like to do is, if confirmed, I'd like to have the 
ability to go in and assess, to see what's possible. If there 
are things that are possible, what options do we have? I don't 
feel as if I can give you a very concrete and informed 
recommendation, at this point.
    Senator Blumenthal. I hope that you will share the sense of 
urgency that many of us feel about this situation and about the 
very dire predicament of many of those courageous fighters who 
are opposing the murderous and barbaric regime that the Assad 
Government, if it still is a government, has become. I would 
invite you--in fact, I'd urge you--to present to this committee 
your recommendation, as soon as possible, because I think we 
feel that sense of urgency, and I hope that more can be done, 
militarily, to deprive Assad of his superiority, where he has 
it, in the air, and his forces on the ground that he is using, 
very simply, to slaughter the citizens of his own country.
    General Austin. Yes, sir.
    Senator Blumenthal. Thank you.
    Thank you, Mr. Chairman.
    My time is expired, but, again, my thanks to each of you 
for your extraordinary service in the past and in the future, 
and again, to your families.
    Thank you.
    Senator Kaine. Thank you, Senator.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank General Austin and General Rodriguez, and 
their families, for, absolutely, your extraordinary service to 
our country, and very much appreciate your being here.
    I wanted to follow up to what Senator Blumenthal discussed 
on section 841. As you recall, Senator Brown and I had worked 
on this no-contracting, or the enemy provision, that has given 
some authority to DOD to cut off enemy funds. I just want to 
join what Senator Blumenthal has said, that I look forward to 
working with him, and look forward to your commitment to make 
sure that we can give you all the tools that you need, 
including extending those tools to the State Department to cut 
off funds that go to our enemies. I appreciate your commitment 
on that, and look forward to working with Senator Blumenthal 
and both of you to make sure that happens.
    General Austin, I wanted to ask you--when Senator Donnelly 
had asked--you mentioned you had been through the process 
before, of deciding what a follow-on force should be. That was 
in the context of commanding Iraq? Is that right?
    General Austin. That's correct, ma'am.
    Senator Ayotte. When you were the commander in Iraq, what 
was your recommendation to the administration on the troop 
levels that should remain, assuming we could negotiate a status 
of forces agreement?
    General Austin. Ma'am, I presented a range of options to 
the leadership. I provided that recommendation. I've never made 
public what my recommendations were.
    Senator Ayotte. It was reported, at the time, that your 
recommendations were between 14,000 to 18,000 troops. Was that 
accurate?
    General Austin. Again, ma'am, I provided that to the 
President, in confidence, and I have not made that public, and 
would not like to make that public.
    Senator Ayotte. Let me ask you this, General. The 
recommendations that you provided, and the number that was 
ended up, that Senator McCain just asked you, was that number 
significantly below what you recommended?
    General Austin. It was, ma'am.
    Senator Ayotte. Okay. Thank you.
    You have said, in answer to Senator McCain, at this point, 
you've not been involved in the decisions on the troop 
withdrawal in Afghanistan, or the follow-on force, following 
2014. Is that right?
    General Austin. Yes, ma'am.
    Senator Ayotte. Have you spoken to either General Allen or 
General Dunford about this topic?
    General Austin. Have I spoken with them?
    Senator Ayotte. Have you spoken to them about what their 
recommendations are?
    General Austin. No, ma'am, I have not.
    Senator Ayotte. Senator McCain asked you about the 34,000 
withdrawal that the President announced the other day. There 
was a report in the Washington Post that General Dunford, whom 
I'm sure you have great respect for, as well as General Allen, 
that they had been seeking a reduction of no more than 25,000 
troops during that same period. That would have been 
significantly--certainly, the President's recommendation is 
much higher. Would that surprise you? Have you followed any of 
the public reporting on this?
    General Austin. I have read some of what's in the media. 
But, my experience, there, ma'am, is that, that's not always 
accurate, because it doesn't have the complete----
    Senator Ayotte. Let me follow up. Military officials, on 
background, were saying that, ``Pulling out 34,000 leaves us 
dangerously low on military personnel, while the fledgling 
Afghan army and police need our support. It's going to send a 
clear signal that America's commitment to Afghanistan is going 
wobbly.''
    I guess I would ask you--I'm actually very surprised, as 
well, that you've not had conversations, given that you're 
taking over in CENTCOM, with General Allen or General Dunford 
about this very important question at this point. But, I would 
ask you, if we're in a position where the withdrawal puts us in 
a situation where we're going to be dangerously low on military 
personnel, I would expect you to come forward to this 
committee--when asked--and tell us your professional opinion as 
to what we should be doing. Will you do that?
    General Austin. I will do that, ma'am. I would say that 
there are a number of things that the commander considers as he 
makes his recommendation: the tasks that he's been presented 
with, that he has to accomplish; what--his assessment of the 
environment that he has to work in; any significant 
transitions--``transitions'' meaning things like an election; 
other things, like maybe the fighting season that he has to go 
through. All that goes into his calculus to provide a range of 
options, in terms of recommendations there. As the leadership 
looks at it, they will consider other things, and I just don't 
have any idea of what, exactly, went into that specific 
calculus. So----
    Senator Ayotte. General Austin, I went to a troop 
deployment, on Sunday, in New Hampshire, of a Guard unit that's 
going to Khost Province in Afghanistan.
    General Austin. Yes, ma'am.
    Senator Ayotte. One of the worries that I have is that the 
numbers that are being floated by the administration on the 
follow-on--don't we get to a point where, if we don't have 
sufficient numbers there, we have to worry about the protection 
of our own forces?
    General Austin. Yes, ma'am. That clearly is one of the 
things that commanders must take into consideration, whether or 
not they'll be able to provide the adequate force protection 
for their troops as they're conducting operations in the area. 
Again, depending on what the specific missions are that they'll 
be asked to do, and how much of it they'll be asked to do, when 
you factor in force protection and other things, then that 
really kind of lays out what the commander thinks his 
requirements are. Again, typically he will present a range of 
options.
    Senator Ayotte. I understand it, but certainly we need to 
take into account the protection of our own troops there. If we 
get to a number that's so low that we can't protect our own 
troops, I'm going to be very concerned about that, and I expect 
your professional opinion on that as we go forward on this 
follow-on.
    Just so that everyone understands, why does it matter? Why 
does a good outcome in Afghanistan matter?
    I'd like an answer from both of you on that.
    General Austin. Yes, ma'am, thanks. It clearly is important 
to the region. It's important to the United States of America. 
We have a lot invested. We'd like to see this country continue 
to move forward. We'd like to see the political system begin to 
grow. I think, if the right things happen, it'll stabilize 
things in the region, and certainly it'll help us with our 
relationship with Pakistan and some other things.
    I think it's important for the region, and it's also 
clearly important for the country of Afghanistan, important to 
the North Atlantic Treaty Organization (NATO), and important to 
the United States of America.
    Senator Ayotte. I know my time's up, but, General 
Rodriguez, I would like your opinion as to, why does this 
matter, in terms of the protection of our country, our 
interests? We've sacrificed so much there, and obviously, I 
think it's important that we understand, why does the stable 
Afghanistan, the outcome of that, matter?
    General Rodriguez. Stable Afghanistan, ma'am, means that's 
one of the things that was the objective, so that it never 
became a haven for al Qaeda and its adherents so they could 
never attack both the U.S. Homeland, U.S. interests, and our 
allies worldwide.
    Senator Ayotte. Thank you. I'll have followup questions for 
both of you.
    Senator Kaine. Thank you, Senator.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Generals, thank you for your service to the Army and to the 
Nation. I can't think of two more dedicated and experienced 
officers to lead our forces in the various areas of command 
you're being assigned.
    In fact, General Austin, correct me if I'm wrong--you were 
a brigadier general in the invasion of Iraq, with the 3rd 
Infantry Division (ID), you were a major general in 
Afghanistan, commanding the 10th Mountain Division, you were a 
three-star in Iraq, in the multinational forces. You are, I 
think, maybe one of the few combatant commanders that are going 
to an AOR where you've commanded at every general officer 
level. Is that correct?
    General Austin. That's correct, sir.
    Senator Reed. I don't think we could find someone better 
acclimated to the various challenges; and there are quite a few 
throughout the region.
    One of the issues that's been touched upon is Iraq. From 
your perspective, are the problems there more political in 
nature or more the military capacity? Because what we've seen 
has been, I think, a very chaotic political situation--
demonstrations, sectarian tensions--but, the Iraqi security 
forces seem to be performing reasonably well, given the 
training and the investment we've made. Is that a fair 
assessment?
    General Austin. Sir, I would say from my perspective, 
that's a fair assessment, that the security forces have done 
reasonably well.
    Senator Reed. Going forward, the challenges there seem to 
be more political than any type of military threat from the 
outside, or an uncontrollable internal threat. Is that a fair 
assessment, too?
    General Austin. Yes, sir.
    Senator Reed. Thank you.
    One of the key factors and key roles that you play--it's 
not just making sure our forces are well prepared, well 
organized, and well deployed--it's communicating, explicitly 
and implicitly, with leaders in different countries. I can 
think of several in your AOR. One is Pakistan, and one is 
Egypt, because of our relationship to the militaries. Do you 
have any perspective now with respect to your likely engagement 
with General Kayani in Pakistan and the Egyptian Army?
    General Austin. Yes, sir. I look forward to trying to 
develop a--or, not trying, but developing a good working 
relationship with General Kayani and the military leadership in 
Pakistan. I think it's essential to our overall relationship, 
and I think it will be very helpful in us trying to move 
forward with what we're doing in Afghanistan.
    In Egypt, we have long enjoyed a great military-to-military 
relationship that's been very helpful to us. We will continue 
to try to build upon that, going into the future.
    Senator Reed. Let me ask you another question, and that's 
with respect to our forces in Afghanistan. As the Vice Chief of 
Staff of the Army, your current role, it would be highly 
unusual that you would be participating in the deliberations of 
strategy, going forward, in Afghanistan or any other area of 
operation. Is that fair to say?
    General Austin. That's correct, sir.
    Senator Reed. Yes. The planning was done appropriately 
through CENTCOM, General Mattis, beginning with General Allen 
and his colleague, going up into the Secretary of Defense's 
office, not through the Vice Chief's office, to the President 
for the final decision. That's the way it's done.
    General Austin. That's correct, sir.
    Senator Reed. Your collaboration has been--and it'll 
increase--certainly increase if you're confirmed; and I have 
every expectation you will--but, at that point, you will be 
having an opportunity to work closely with General Dunford and 
all of the commanders for a period of several months, I 
believe.
    General Austin. That's correct, sir. It will give me an 
opportunity to engage leadership on the ground, to get a clear 
understanding, from the staff at CENTCOM and also the Joint 
Staff, in terms of all of the elements that have gone into 
this, which is typically a pretty tightly controlled process, 
and rightfully so.
    Senator Reed. Right. Thank you very much.
    General Rodriguez, again, thank you for your service. 
You're taking over a region which is our newest unified 
command, one which is facing a new set of challenges that, 4 or 
5 years ago, were not relevant. I think it's appropriately--and 
fitting--that you're both sitting side by side, because what 
happens in Egypt has certain effects in your command, and what 
happens in your command has certain effects throughout General 
Austin's command. But, can you give us your sense, right now--
and again, being the U.S. Army Forces Command commander, you 
have not, on a day-to-day basis, been engaged in deliberate 
planning--can you give us your sense of what the threats are in 
AFRICOM, and how well positioned you believe AFRICOM is?
    General Rodriguez. Yes, sir.
    Sir, the threats in AFRICOM really revolve around three 
major areas. Of course, one being al Qaeda in the Islamic 
Maghreb, which is where the French operation, supported by the 
African nations and the United States, is ongoing. Then also, 
al Shabaab, over in Somalia, and then Boco Haram. Also the LRA, 
as discussed earlier here. Those are the major threats to 
stability, militarily; but, of course, they have significant 
other ones in both government as well as health issues.
    Senator Reed. Yes, I think you've touched on something 
that, again, is a critical issue that cuts across both AORs; 
that is, governmental capacity, the ability of government to 
provide basic service, the ability of governments to function, 
at least to respond to the true needs of their people. One of 
the issues that we've talked about, General Rodriguez, is that 
we have had military training operations that have gone in, 
over the last several years, into African countries, as far as 
AFRICOM, with mixed results. Do you have any specific ideas 
about how you would improve the military training teams that 
will be a major aspect of your operational capacity?
    General Rodriguez. Yes, sir. If confirmed, I will look at 
that very, very hard. As General Ham has stated in the past, 
some of the training has been focused on tactical and 
technical, and some of the things that we did not emphasize 
were the values of the army, as well as the role of a military 
in a democracy. Those are some of the things that he's already 
started to work on, and I'll watch that very carefully--if 
confirmed--and assess that, and go forward in the best way 
possible, sir.
    Senator Reed. My time is expired, but, again, gentlemen, 
there are very few people who have served the Army and the 
Nation with your courage and your distinction and your 
dedication to the soldiers. For that, I thank you.
    Senator Kaine. Thank you, Senator.
    Senator Fischer.
    Senator Fischer. Thank you, Senator Kaine.
    I, too, would like to thank you, gentlemen, and your 
families, for your service and dedication to this country. I 
would also like to thank you, and thank the servicemembers that 
you represent, and their families, for their service to this 
country, as well.
    If I may, I'd like to continue on that Washington Post 
article that came out recently. It did suggest that the 
Pentagon is pushing a plan that would keep only about 8,000 
troops in Afghanistan. I know that, General Austin, you weren't 
a part of the planning process, thus far, but can you support a 
plan that would schedule withdrawal of troops in advance? We're 
looking at a withdrawal of troops in Afghanistan, and, 
according to this article, from about 8,000 down to a thousand, 
within a very short period of time. I have questions if we can 
even maintain our mission, let alone complete the mission.
    How can you make decisions on troop withdrawal, when, as 
you stated previously, so much depends upon conditions on the 
ground, what the government is doing, what their abilities are, 
up to that point? How would you approach a proposal like that?
    General Austin. I certainly would, first, really work hard 
to make sure I fully understood what the leadership wanted to 
get done, moving into the future. Certainly, my advice, as a 
commander on the ground or Commander of CENTCOM, I would 
provide my advice to them, based upon where I think the 
security forces are, and conditions in theater, and what I 
think we needed to do to move forward, to make sure we maintain 
the gains that we've achieved.
    But, I think so much is tied to what it is, what policy 
objectives that the leadership wants to accomplish. Based upon 
that, I would outline the forces required. I would consider the 
fact that there's a NATO complement to whatever forces we're 
going to have. Again, it really depends on what level that 
we're advising and assisting the Afghan security forces at. 
Then, how I assess that we need to do that.
    If I'm confirmed, as I go in, those are things that I will 
work with General Dunford on, look at very closely, early on. I 
know that the leadership is still in the process of making the 
decisions on what it's going to look like, post-2014.
    Senator Fischer. Do you think it's useful to put those 
numbers out there so far in advance? Is there a military reason 
it's useful to put those numbers out there?
    General Austin. I do know that we're a part of a coalition 
effort. I do know that--members of the coalition are trying to 
determine what their commitment's going to be, going forward. 
They would like--my guess is that they would like as much 
predictability as possible.
    Senator Fischer. I appreciated Senator Reed's question that 
he asked General Rodriguez. How would you prioritize, General 
Austin, the threats in your future command? What do you see 
those as being?
    General Austin. It's a very complex and dynamic region, 
volatile region. We see a number of things that are kind of 
working together to fuel that instability. You see sectarian 
strife in a number of places. You see governments, that are 
former autocratic governments, that are either failed or 
failing, creating further instability. The instability is an 
issue there.
    Again, we are certainly concerned about the Iranian 
aggression in the region, which adds to the complexity there. 
Of course, there's specific issues of Syria and the continuing 
work that we have to do in Afghanistan, as well. A number of 
things that have to be added together.
    Also, there is a persistent threat from elements, like al 
Qaeda and al Qaeda in the Arabian Peninsula, that have the 
ability to generate a threat to the Homeland. That is very, 
very important.
    Senator Fischer. Are we going to be able to meet those, 
with the troops that are projected to be there? Are we going to 
accomplish our mission? We've had so many families, in this 
country, sacrifice. Is it going to be worth it to them? I know 
you do this every day--how do you look at families and say to 
them, ``We're going to pull out, maybe at levels that I think 
might be dangerously low, as I'm getting information on this''? 
How are you able to do that? When do we reach a hollow force, 
where the men and women that we send into harm's way are no 
longer protected?
    General Austin. We're going to do everything that--the 
leadership will continue to do everything that we can within 
our power to make sure that, when our troops are introduced 
into a dangerous situation, or into combat, that they are 
ready. Whatever we have to do to prioritize resources to make 
sure that we support the folks that are doing the hard work of 
the country, we're going to continue to do that. Again, the 
Services have been clear about the fact that they're going to 
support our troops that are in combat.
    As we look at the shrinking top-line budgets here--the 
shrinking top line of the budget--it's going to make it more 
challenging for us to have forces that are ready to address 
emerging contingencies. That's my concern, going into the 
future.
    Senator Fischer. I would ask both of you gentlemen for your 
commitment to this committee, and to me, that you will always 
be honest and let us know that.
    General Austin. You have my commitment.
    General Rodriguez. You have my commitment.
    Senator Fischer. Thank you so much. Again, thank you for 
your patriotism, your dedication, and your service to us.
    Thank you.
    Senator Kaine. Thank you, Senator.
    Generals Austin and Rodriguez, welcome. I echo the comments 
made by my colleagues, of appreciation for your service, your 
stellar credentials.
    I'm given additional confidence by the fact that you've 
worked so closely together in the past, because I think the 
CENTCOM/AFRICOM real estate and challenges have an awful lot of 
overlap, and that should give us confidence, as well.
    Just to mix things up, I think I'll start with General 
Rodriguez, a few questions.
    AFRICOM has an unusual mission. As I understand from our 
discussion, your deputy commander is a State Department 
official, and it is a mission that is heavily focused on 
partnerships with other agencies, and with the training mission 
with other governments. I'd like you, just for a minute, to 
talk about that unusual nature of the mission, and your own 
background. How it fits you to work in that kind of a very 
multilateral environment.
    General Rodriguez. Thank you, Senator.
    As you said, the headquarters was designed a little bit 
differently than most of the other combatant commands, and has 
more interagency people assigned to the headquarters. I think 
all that is a great benefit to the organization, who stretches 
and reaches across the interagency in an effort that's required 
to be done that way in that interagency effort.
    In the ``building partner capacity'' piece, all of our 
operations are really just like the ones that General Austin is 
talking about--is about helping to build the capacity of that 
nation to protect itself and provide stability for itself. We 
have worked very hard over the years, and we both have 
significant experience trying to build the Iraqi security 
forces, as well as the Afghan security forces to do it 
themselves, and also to work with our multinational partners to 
also ensure that they're part of the solution, both in our NATO 
allies and allies throughout the world, as well as the host-
nation countries.
    I look forward, if confirmed, to try to continue that 
effort to help Africans prepare themselves to take care of 
themselves.
    Senator Kaine. General Rodriguez, some of the most 
challenging attacks on American embassies in our history have 
occurred in the AFRICOM footprint. I've been to two hearings, 
now, on the Benghazi attack--one, a Foreign Relations Committee 
hearing, and one a hearing of this committee--and still have 
some confusion about security that's provided to our diplomatic 
personnel around the world.
    In the Benghazi situation, we were dealing with military 
security through the Marine security guards; we were dealing 
with State Department security--State Department personnel--
but, also, two local militias--one unarmed, one that was 
apparently on some sort of strike or work slowdown because of a 
dispute over wages and benefits. I'd just like to hear you talk 
about the embassy security--recognizing that State takes lead 
on that--but, the embassy security challenges in AFRICOM, and 
how you would approach them, as the commander.
    General Rodriguez. Thank you, Senator. The challenges, as 
you state and we discussed earlier, were about the time-and-
distance factors. If confirmed, I will work very closely with 
Department of State, who has the primary responsibility, as 
you've stated, to understand and have the best situational 
understanding that we can have, so we have threats and 
warnings, so that we understand the ones who are most 
threatened, so that we can respond appropriately.
    We also have to prioritize our collection assets for the 
things that we don't know, it's a joint and interagency, as 
well as multinational, process to get the best situational 
understanding we can.
    The second thing is, of course, in collaboration with the 
State Department, to make sure that the State Department 
understands our responsiveness and what we can do, so that they 
can make the best decisions and recommendations to the 
leadership.
    Lastly, the response forces have already increased, in the 
aftermath of the Benghazi attack, and some of the lessons that 
were learned. There is now a new Commanders in Extremis Force 
that is forward-stationed, and we have more forces forward-
stationed, as well as a special Marine Air-Ground Task Force 
that is also in Djibouti right now. In another month, there'll 
be a regionally aligned force from the Army who is allocated to 
AFRICOM to help with these challenges.
    Senator Kaine. Great.
    General Rodriguez. Thank you, Senator.
    Senator Kaine. Thank you, General.
    General Austin, to return to a point that we've talked 
about briefly, in your advance policy questions, you stated 
that maintaining a credible naval force in the region, covered 
by sufficient aviation combat power, is essential to 
demonstrating an enduring commitment to regional partners. 
We've had discussion on this committee, just this week, about 
the aftermath of the decision of the deferred deployment to the 
USS Truman. Just focusing on that and the sequester, from your 
perspective as you prepare to take command of CENTCOM, what is 
the impact of a reduced naval presence in the region? Will it 
complicate your ability to carry out your mission?
    General Austin. I think it will, sir. I think, certainly, 
again, those forces have been outlined by General Mattis as 
what he needs to accomplish the goals and objectives that he's 
laid out. That's been supported by the Joint Chiefs, and 
resourced by the Office of Secretary of Defense. This has gone 
through a pretty deliberate process to allocate those resources 
and forces.
    When he doesn't have those available, or when a commander 
doesn't have them available, then, again, it really begins to 
take away his flexibility to address emerging situations. Once 
you reduce the presence in the region, you could very well 
signal the wrong things to our adversaries. We'll want the 
commander--and I'll certainly want to have, if I'm confirmed--
to have as many options available as possible to address the 
current situation and any emerging situations or crisis.
    Senator Kaine. Let me ask you this. The ``send the wrong 
message to allies or adversaries,'' what about the message that 
it sends, just from your own experience, inside the 
organization, as you deal with your officers and enlisted? 
What's the buzz as they continually watch Congress run up 
against one kind of fiscal crisis after the next, that gives no 
certainty to the military about its resource capacity?
    General Austin. It certainly can be disheartening, sir, if 
we kind of know we have things that we're trying to accomplish, 
we know that we need resources, and it's difficult to get those 
resources. Having said that, it's the spirit of our military to 
try to find a way to be successful. But, we want to make sure 
that, if at all possible, we're resourcing them with the 
adequate things--with the things that they need to be 
successful.
    Senator Kaine. Thank you very much, to both of you.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I understand we're going to have two rounds, if you could 
just let me know when 7 minutes is up, I have a few more 
questions. I'll try not to hold everybody up.
    Senator Kaine. Great. We'll move right into a second round 
as soon as you're finished if no one else comes.
    Senator Graham. Okay. Thank you very much.
    This is one of the most important hearings we've had in, 
probably, a very long time. That's saying a lot, given the 
hearings we've had in recent time.
    Both of you, thank you for your service. I know you well, 
appreciate your families. You're fine men.
    General Austin, here's my dilemma. I'm not so sure--and I 
may be wrong--that you cannot tell us what you recommended 
about troop levels. I don't know if that's an executive 
privilege, or not. I'll have to think about that. I don't know 
if you have the right to do that, quite frankly.
    I know what you told me. You told me, on the tarmac in 
Baghdad, that we needed somewhere between 18,000 and 20,000. I 
said, ``That may be more than the market can bear.'' You said, 
``Well, look at the numbers.'' I know what your recommendations 
were; it was somewhere in the mid-15,000 to 16,000. I think the 
bottom line, for most people, was 10,000. I have an exchange 
between me and General Dempsey about how the numbers went from 
19,000, I think, all the way down to 5,000, and eventually to 
0.
    I'd like to put in the record the exchange I had with 
Chairman Dempsey about the ever-changing numbers in Iraq.
    [The information referred to follows:]
    Hearing to Receive Testimony on Security Issues Relating to Iraq
 tuesday, november 15, 2011, u.s. senate, committee on armed services, 
                            washington, dc.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you both for testifying. This is a very important issue for 
the country, and I think we have had a good discussion.
    Number one, I completely concur with the idea that American troops 
should not be left behind in Iraq without legal protections. It is not 
fair to them. To say that the Iraqi legal system is mature is being 
gracious. If an American soldier were accused of rape anywhere in Iraq, 
I do not think they would get a fair trial. So at the end of the day, 
Iraq has a long way to go on the legal side and I think a long way to 
go on other sides.
    My concern is that I have never bought into the idea that the 
impasse was getting the parliament to approve an immunity agreement. I 
will just give you one vignette. I went over with Senator McCain and 
Senator Lieberman in May to talk to the prime minister about a follow-
on force, and I was discussing with him that no American politician, 
Republican or Democrat, would accept a follow-on force without legal 
protections. As we were talking about it, he says, well, how many 
people are you talking about? What is your number? I turned to 
Ambassador Jeffrey and General Austin and said you have not given them 
numbers. He says, no, we are still working on that. That is in May.
    So let us get into this, General Dempsey. 16, 10, 5, cascading. Is 
it your testimony that we were proposing 16,000 to the Iraqis and they 
said no? Then we came back with 10,000 and they said no. Then we came 
back 5,000 and they said no. Then it got to be zero.
    General Dempsey. No, that is not what I testified to.
    Senator Graham. What caused the cascading effect? General Austin 
told me--and I will just tell you now because it is so important--he 
thought we needed 19,000. and I said, Lloyd, that is probably going to 
be more than the market can bear. I said that because I am concerned 
about American politics too.
    Then the numbers were around 15 to 16. Then we started about 10. It 
came to 10, and nobody got below 10. So I know what General Austin had 
on his mind.
    At the end of the day, General Dempsey, you are right. It is about 
the missions you want that determines the numbers. We have got through 
it pretty well. Iraq does not have the intel capacity we do. We need to 
make sure they have better intelligence. They do not have an air force. 
We need embedders. We need trainers. We need CT. we need to referee the 
Kurd-Arab dispute. I think 10 or 12 is what you need. At the end of the 
day, we are down to zero.
    I guess my question is, is Iran comfortable with a democracy on 
their border in Iraq, Secretary Panetta?
    Secretary Panetta. I think they are very nervous about having a 
democracy on their border.
    Senator Graham. Let me tell you what the speaker of the Iraqi 
parliament, a Sunni, Mr. Najaf, said. Iraq now suffers from points of 
weakness. If neighboring countries see that Iraq is weak and incapable 
of protecting its border and internal security, then definitely there 
will be interference. This interference does not exist now. He was 
talking about how Iran would step up their efforts to destabilize Iraq 
if we all left.
    Do you agree that is a more likely scenario? They are doing it now. 
They are only going to do it more if we do not have anybody there.
    Secretary Panetta. I think there will be a continuing threat. I 
think that the reality is that the Iraqis do not want to have Iran 
exert that kind of influence in their country.
    Senator Graham. Now, if the Sunni speaker of the parliament is 
worried about that, is there any doubt the Kurds want us there? If it 
were up to the Kurds, there would be 50,000 American troops in 
Kurdistan. Do you agree with that?
    Secretary Panetta. Yes.
    Senator Graham. So we know the Sunnis are worried about this, and 
we know the Kurds would have 50,000 if we would agree to put them 
there. I would not agree to that, but they are very welcoming of U.S. 
troops. So I am getting a little bit concerned that all the blame on 
the Iraqi political system is maybe not quite fair.
    Secretary Panetta, you were a politician in another life. Would it 
be a political problem for President Obama to announce this year that 
we are going to keep 15,000 people in Iraq past 2012? Did that ever get 
considered in this administration? Did anybody ever talk about the 
numbers changing because the Democratic base would be upset if the 
President broke his campaign promise?
    Secretary Panetta. Not in any discussions that I participated in.
    Senator Graham. Do you think it ever happened anywhere? Do you 
think anybody in the White House ever wondered about the political 
effect of having troops in Iraq on the 2012 election? You talk openly 
about the Iraqis having political problems. You do not think there are 
any politics going on on our side?
    Let me ask you about Afghanistan, General Dempsey. Did any 
commander recommend that all of the surge forces be pulled out by 
September 2012?
    General Dempsey. I honestly do not know, Senator.
    Senator Graham. Well, let me tell you. The testimony is clear. No 
option was presented to the President in July to recover all surge 
forces by September 2012, and you put General Allen in a terrible 
spot--the administration has. I think it is no accident that the troops 
are coming home 2 months before this election in Afghanistan, and if 
you believe that to be true, as I do, I do not think it is an accident 
that we got to zero.
    Now, at the end of the day, we are at zero. Do you think the people 
in Camp Ashraf are going to get killed? What is going to happen to 
them?
    General Dempsey. Senator, the State Department is leading an effort 
to ensure that we work with the Iraqi----
    Senator Graham. Can you tell the people back here that the 
likelihood of their friends and family being killed is going up greatly 
if there are no American forces up there policing that problem?
    General Dempsey. I will not say anything to those people because I 
am not involved in the outcome.
    Senator Graham. Fair enough.
    I asked Admiral Mullen, your predecessor, what is the risk of an 
Arab-Kurdish conflict over the oil reserves around Kirkuk in terms of a 
conflict if we are not present. He said it was high. Do you agree with 
that?
    General Dempsey. I might have said moderate because of my own 
personal contacts with both the Kurds and the Iraqis.
    Senator Graham. So you believe that there is a moderate risk, not a 
high risk, if there are no U.S. Forces policing the Kurd-Arab 
borderline disputes and the Kirkuk issue.
    General Dempsey. I do. I would like to take some time to articulate 
why I believe that, but if you would like me to take that for the 
record, I would be happy to do so.
    Senator Graham. I would.
    Now, do you believe it is smart for the United States not to have 
counterterrorism forces? Is it in our national security interest not to 
have any counterterrorism forces in Iraq?
    General Dempsey. It is in our national security interest to 
continue pressure on al Qaeda wherever we find them either by ourselves 
or through partners.
    Senator Graham. But do you think the counterterrorism problem in 
Iraq is over?
    General Dempsey. I do not.
    Senator Graham. Secretary Panetta, you have been great about this. 
You said there are a thousand al Qaeda in Iraq, and I know in your old 
job that you are very worried that they are going to reconstitute. So 
will you do the best you can to convince the Iraqis--and I tell you 
what. I am willing to get on a plane and go back myself--that they 
would benefit from counterterrorism partnership with the United States?
    Secretary Panetta. I have made that clear time and time again.
    Senator Graham. They just tell you they are not concerned about 
that.
    Secretary Panetta. What they tell me is that they are concerned 
about that. They obviously have their forces that are dealing with 
that.
    Senator Graham. Is it your testimony the Iraqis would not have 
3,000 U.S. Forces? They do not want any U.S. Forces at all. They are 
not willing to expend the political capital to get this agreement done 
because they just do not see a need for U.S. Forces. Is that the Iraqi 
position that they have come to the point in their political military 
life that they just do not need us at all?
    Secretary Panetta. I think the problem was that it was very 
difficult to try to find out exactly--when you say the Iraqi position, 
what exactly the Iraqi position was at that point.
    Senator Graham. What is the Kurdish position in Iraq about U.S. 
Forces?
    Secretary Panetta. Well, I do not think there is any question they 
would like to----
    Senator Graham. So what is the Sunni speaker of the parliament's 
position about U.S. Forces?
    Secretary Panetta. I think the same.
    Senator Graham. Well, when I was with Prime Minister Maliki in May, 
the next day he announced that he would accept a follow-on force if 
other parties would agree. So how did this fall apart?
    Secretary Panetta. I heard the same statements and read the same 
statements. But the problem is in the negotiations that involved the 
Ambassador, that involved General Austin, in those discussions they 
never came to the point where they said we want this many troops here.
    Senator Graham. Well, I can tell you--and I have taken my time. I 
can tell you in May they had no number given to them by us. They were 
in the dark as late as May about what we were willing to commit to 
Iraq. So this is a curious outcome when you got Sunnis and Kurds on the 
record and the prime minister of Iraq saying he would accept a follow-
on force if the others agreed. I do not know who does the negotiation 
for the United States, but if I had three people saying those things, I 
thought I could get it over the finish line. But we are where we are.
    Thank you for your service.

    Senator Graham. The point, Mr. Chairman, was that the 
Iraqis were not saying, ``18,000 too many, 15,000 was too 
many.'' That wasn't the exchange.
    Did Prime Minister Maliki tell you that he thought 18,000 
were too many?
    General Austin. No, sir.
    Senator Graham. Okay. So, this was coming from the White 
House; this is what Chairman Dempsey said, that the numbers 
were cascading down, were not because the commanders were 
saying, ``I overshot.'' It's because the political people were 
saying, ``That's too many,'' and you kept coming down and down; 
and at 10,000, I think, you finally said, ``That's the lowest I 
can go.'' The cascading effect of the numbers being reduced 
were not the Iraqis saying, ``We can't have all that many 
troops,'' it was that our own White House--and they have every 
right to do this, by the way--was saying, ``We just don't agree 
with the commander's recommendation.''
    Do you remember that exchange between me and Prime Minister 
Maliki, in May, when we were over there, in 2011?
    General Austin. I do, sir.
    Senator Graham. He turned to me and says, ``Well, how many 
troops are''--cause we were asked to go to Iraq--myself, 
Senator Lieberman, and Senator McCain--by Secretary Clinton, to 
see if we could push the Iraqis to make sure we had legal 
protections for our troops. I'm with the President on this; I 
wouldn't have one troop in Afghanistan or Iraq without a status 
of forces agreement, that he was absolutely right to insist on 
that. But, when Prime Minister Maliki said, ``How many are you 
going to recommend?'' I turned to you and Ambassador Jeffrey, 
and you said, I believe, ``We're still working on that.'' Do 
you recall that conversation?
    General Austin. Yes, sir, I do.
    Senator Graham. Okay.
    I was a bit astonished, because it's not that General 
Austin didn't know what he needed, it's just nobody would tell 
him what they were going to approve.
    I just want people to be clear that General Austin always 
had a firm view that we needed--18,000 to 20,000 is what he 
first said, and I said, ``General Austin, that may be more than 
the political market can bear,'' because I'm not insensitive to 
the fatigue back here at home. So, you kept putting pen to 
paper. I know very well that you were making the best 
recommendations you could.
    My problem is not with you, General Austin. You put the 
numbers to paper, and, at the end of the day, we have none.
    I just want to put into the record a load of articles about 
Iraq: ``Blood for Oil,'' ``Iraq's Return to Bloodshed,'' ``Why 
Kurds Versus Arabs Could Be Iraq's Next Civil War,'' ``Be 
Warned, Americans' Withdrawal From Iraq Heralds a World of 
Instability.'' I'd like permission to put all these articles 
into the record.
    Senator Kaine. Without objection, they'll go into the 
record.
    [The information referred to follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
     
    Senator Graham. Thank you, Mr. Chairman.
    I just want everybody to know, General Austin thought long 
and hard about a residual force.
    Now, do you remember, when you were first getting the job, 
taking it over from General O. (Odierno), we had an exchange 
where I said, ``In football terms, how would you put us, in 
terms of our situation in Iraq in June 2010?'' He said, ``I 
think you've--I did, sir. I think we're on the 10 yardline, and 
I think that the next 18 months will determine whether we get 
to the goal line or give, really, the Iraqis an opportunity to 
get to the goal beyond 2011.'' I said, ``We're having a new 
quarterback,'' and you said, ``Sir, I'll take the ball.'' You 
agreed with me that we were inside the 10, that we needed a 
residual force. You talked about the Arab-Kurd conflict. You 
told me, in no uncertain terms, ``One of the friction points in 
Iraq was at Kirkuk.'' Do you remember that?
    General Austin. I do, sir.
    Senator Graham. Do you remember the Lions Brigade concept, 
where you had Iraqi security forces?
    General Austin. I do, sir.
    Senator Graham. You had the Peshmerga Brigade, and you had 
U.S. Forces, working as a team. I think that may have been your 
idea. It was working so well, because the Peshmerga are, 
basically, paramilitary forces that are Kurds. Now you see a 
shooting war about to erupt, I'm afraid, between the Peshmerga 
and the traditional Iraqi Security Forces. You told me that, if 
we had about 5,000 people at the Article 140 boundary line, we 
could keep tensions down. Do you remember that?
    General Austin. I do, sir.
    Senator Graham. Do you remember telling me that we were one 
perceived slight or insult away from these guys shooting each 
other, and we need to have a follow-on force to keep tensions 
low?
    General Austin. That was my assessment, sir.
    Senator Graham. It was a good assessment.
    What you see now, Mr. Chairman, is the ``Blood for Oil'' 
article is a story, last week, about how close they've come to 
firing at each other over the oil problems in Kirkuk.
    I want to introduce into the record the exchange I had with 
General Dempsey, General Odierno, and General Austin, in 2010 
and 2011, about what happened in Iraq.
    Senator Kaine. Without objection, it will be entered into 
the record.
    [The information referred to follows:]
 Nominations of GEN Raymond T. Odierno, USA, for Reappointment to the 
  Grade of General and Commander, U.S. Joint Forces Command; and LTG 
Lloyd J. Austin III, USA, to be General and Commander, U.S. Forces-Iraq
   thursday, june 24, 2010, u.s. senate, committee on armed services,
                            washington, dc.
    Senator Graham. Thank you, Mr. Chairman.
    Congratulations to both of you on the job you have done and the new 
jobs you're going to undertake, here.
    General O--I always butcher your name, I'm just going to call you 
General O--there must be a height requirement for these jobs. 
[Laughter.]
    We mentioned yesterday the World Cup is going on and it's fun to 
watch, and I'm pulling for the U.S.A., but I have really no idea what 
they're doing when they play soccer. So, we're going to talk football. 
I think you indicated, we're probably on the 10-yard line when it comes 
to Iraq?
    General Odierno. I did, Senator. I do think we are on the 10-yard 
line. I think the next 18 months will determine whether we get to the 
goal line, or really give the Iraqis an opportunity to get the goal 
line beyond 2011.
    Senator Graham. But, from our national perspective, we're on the 
10, and I think you said we probably have four downs? It's first and 10 
on the 10, we have a new quarterback coming in.
    General Odierno. That's right.
    General Austin. I'll take the ball, Senator.
    Senator Graham. I couldn't have found a better guy to be the new 
quarterback.
    Now, the Sons of Iraq, how is that going, General O, in terms of 
getting those people integrated in the Iraqi security forces?
    General Odierno. We started out with about 103,000 Sons of Iraq. 
About 40,000 have been transitioned into other Government of Iraq jobs. 
They actually stopped the transition because they were starting to 
realize the value in many areas of what they were providing in terms of 
intelligence and other things, so they've slowed that down, and they're 
now doing some reevaluation of the Sons of Iraq program, and how they 
want to transition that.
    Senator Graham. Are they still getting paid?
    General Odierno. They are.
    Senator Graham. One thing that we need to watch for, General 
Austin, is you have thousands of young Sunnis that are receiving a 
government paycheck, I think it's like $90 a month, is that right?
    General Odierno. Three hundred.
    Senator Graham. Three hundred? Okay, $300 a month. We have to make 
sure that if that pay stops that we have a plan, do you agree with 
that, General Austin?
    General Austin. I absolutely agree with that, Senator. I was there, 
again, in the early days we begin to transition the Sons of Iraq to 
working for the government and work along with the Prime Minister to 
outline a plan to effectively transition them. I think they've done a 
pretty good job, and we need to continue to do that in the future.
    Senator Graham. Okay, who's paying? Is that coming from the Iraqi 
budget?
    General Austin. Absolutely.
    Senator Graham. Okay.
    Now, Article 140 boundary dispute issues, I think there are a 
couple of trip wires left in Iraq and one of them that stands out to me 
is how do you resolve the Arab-Kurdish conflict in Kirkuk and the 
boundary dispute. If you could both give me, maybe, a 30-second 
overview of where we're at and what could we do in Congress to help 
you?
    General Odierno. We have established a tripartite security 
architecture in the disputed areas for about 6 months now, and it's 
been very successful in reducing tensions. It's Pesh Merga, Iraqi Army 
and U.S. Forces manning checkpoints and joint security areas where they 
do patrolling in these areas, and it has calmed things down 
considerably. The United Nations (U.N.) is now taking on the role of 
now mediating the long-term issues of the border issues and the status 
of Kirkuk and other issues.
    Senator Graham. Do you think that will get resolved for this new 
government in a year?
    General Odierno. It depends. My guess is, some of that will be 
discussed during the governmental formation process. How well that goes 
could determine how quickly it could happen. I do believe though, to 
solve the whole problem, it will be longer than a year.
    Senator Graham. General Austin, do you agree that is one of the big 
outstanding issues that the Iraqi people have to resolve?
    General Austin. Senator Graham, I absolutely do.
    I think that, I would be delighted if it could be resolved in a 
year but----
    Senator Graham. Probably not.
    General Austin. I really believe that it's going to take awhile.
    Senator Graham. Do you feel like we have enough resources and focus 
to help them get it resolved?
    General Austin. I think that we're doing the right things in terms 
of working with the government to help them build confidence--bring 
about confidence-building measures to bring the two sides closer 
together. I think, again, it's encouraging to see that the U.N. is 
continuing to try to help, we'll require their help in the future.
    Senator Graham. Okay.
    General Austin. But this is going to take a lot of work.
    Senator Graham. Okay.
    The hydrocarbon law. Have you had to pass the hydrocarbon law, is 
that right, General O?
    General Odierno. That's correct, Senator.
    Senator Graham. From my point of view, for what it's worth, is that 
until the Iraqis have a statute that divides the oil up between each 
group where everybody feels like they're getting the resources of the 
country fairly shared, it's going to be a tough go. Do you see a 
breakthrough in the hydrocarbon law any time soon?
    General Odierno. I think the hydrocarbon law, itself, probably 
might not get passed. But, I think there are other alternatives.
    Senator Graham. They do it year-by-year, budgeting-wise, don't 
they?
    General Odierno. Yes, year-by-year, but also they get a revenue 
sharing agreement----
    Senator Graham. Right.
    General Odierno.--I think would be important. I think that's 
something that people are looking at now, and I think that would help 
significantly.
    We've had some thawing, there was an argument about whether the 
Kurdistan Region could develop their own oil, they have solved that 
problem. They have now begun to develop that. The Government of Iraq, 
the Central Government is helping them, so that's a breakthrough. We're 
starting to see small breakthroughs in the overall resolution of this. 
But again, there's still work that has to be done in that area.
    Senator Graham. The rules of engagement--as I understand it, we're 
partnering with the Iraqi security forces, we have right of self-
defense, obviously, but when you make a raid, now, at night, do you 
have to get a warrant?
    General Odierno. Under the security agreement, all operations must 
be warranted.
    Senator Graham. Is that working okay?
    General Odierno. It is working very well.
    Senator Graham. Do you have good confidence in your judicial 
system, there are no leaks?
    General Odierno. It's not perfect.
    Senator Graham. Not perfect.
    General Odierno. No system is perfect. But our ability to present 
evidence and get warrants, we absolutely have the ability to do that. 
That's working well.
    Senator Graham. That's very encouraging.
    One last question to both of you. General O, we're talking about 
the consequences to the United States of winning in Iraq, and I think 
they're enormous. Probably a good time now, given Afghanistan and where 
we are at in the world--if, for some reason, we didn't make it into the 
end zone, what would be the consequences of Iraq failing?
    General Austin, if you could tell this committee, what are the one 
or two things that keep you up at night when you think about Iraq?
    General Odierno. First, if we had a failed state in Iraq, it would 
create uncertainty and significant instability, probably, within the 
region. Because of the criticality of Iraq, its relationship to Iran, 
its relationship to the other Arab states in the region, if it became 
unstable, it could create an environment that could continue to 
increase the instability. If it becomes unstable and ungoverned, it 
opens the area, potentially, for terrorists, in order to allow Iraq to 
become a place where terrorism could be exported.
    Now, I don't believe we're close to that. I believe we're far away 
from that happening. I think we're definitely on the right path. But 
those are the kinds of things that would happen if we had a complete 
breakdown inside of Iraq.
    General Austin. Senator Graham, we will be successful in Iraq, we 
will get the ball into the end zone. I believe that because of all of 
the great work that our young men and women continue to do on a daily 
basis and the commitment of this entire country to accomplishing that 
in the right way.
    You mentioned the thing that keeps me awake at night, the one thing 
that is foremost in my mind is that if their leadership is unable to 
transfer power in a peaceful manner, that would create conditions that 
would cause us to, perhaps, revert to sectarian behavior and people to 
lose confidence in their ability to be properly represented. That is 
one of the major things.
    But I am confident that, based upon what we've seen thus far, this 
peaceful transition will occur. It will just take some time for them to 
form a government.
    Chairman Levin. Thank you, Senator Graham.

    Senator Graham. Thank you very, very much.
    Now, let's move to Afghanistan. I'm not going to block your 
nomination, that's not my intent. But, I do believe it's only 
fair to the committee that you go talk to General Allen. Pick 
up the phone. I know he's on leave. Do you agree he's one of 
the finest officers you've ever served with?
    General Austin. He is a fine man, sir. Yes, sir.
    Senator Graham. Do you agree with that, General Rodriguez?
    General Rodriguez. Yes, sir.
    Senator Graham. You all have been at this for a very long 
time. All of you. I just can't thank you enough. My time's 
about to expire, so we'll do a second round.
    What I would like you to do--and you can give this to me in 
writing--I want you to go talk to General Allen about his 
recommendations in Afghanistan, and see if they make sense to 
you, because--and I'm not going to reveal this to the 
committee--I know, exactly, his bottom line. I know Senator 
Ayotte knows his bottom line. I want to find out what's the 
proper role of this committee in divulging information, because 
I really do believe we have a right to know what commanders are 
recommending, as much as the Commander in Chief, because we 
fund wars. This idea you can't tell us is something I want to 
explore.
    I'm going to stop now, let my colleagues do a second round. 
Would you please go to General Allen and get briefed on his 
recommendations--bottom line, top line--and write to me as to 
whether or not you think they're sound, before we vote. This 
could be done, I think, relatively quick.
    [The information referred to follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Graham. Thank you.
    Senator Kaine. We'll move to a second round.
    I just want to point out that the questions that the 
witnesses both answered at the beginning indicated that they 
would provide answers unless they had a good-faith reason, in 
consultation with the committee, not to provide them. I believe 
some of General Austin's answers have kind of been along that 
scheme. But, to follow that instruction, and he will come back 
to the committee.
    Senator Graham. That's it, Mr. Chairman, I----
    General Austin. Yes.
    Senator Graham. Really, I think we have a right to get 
this, but I don't want to put these gentleman in a bad spot.
    General Austin. Right.
    Senator Graham. That's why I'm going to wait.
    Senator Kaine. Either we'll get the answer or a good-faith 
description for why you believe certain conversations cannot be 
revealed. We'll get one or the other.
    We'll move to a second round of questions, with no one here 
who has not asked a first round.
    I'll go to Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I share Senator Graham's request, and, obviously, would 
like to understand, if you can't provide that information, why 
that is, because I think that is something important for this 
committee to take up, because we have to make decisions on 
resources that are very important, and we have an oversight 
function. I very much respect the President's function as 
Commander in Chief, but this is a very important issue.
    We were on the same trip to Afghanistan, and having seen 
the conditions on the ground, and having been to a recent 
deployment ceremony, I just want to make sure, also, when our 
guys are still there, that we have enough people there to 
protect the guys and gals we have on the ground. I appreciate 
that very much.
    I have a question for General Rodriguez. Can you help me 
understand what's happening in eastern Libya right now with the 
Qaddafi arms cache that was not secured after the NATO activity 
in Libya? What is happening with those arms? Where are they 
going? What efforts are we making to secure those arms?
    General Rodriguez. Yes, ma'am. They had significant arms 
caches throughout Libya; and many of them, of course, in 
eastern Libya, which is the most unstable part of Libya right 
now. The Intelligence Community has assessed that those 
continue to move. Many of them have moved southwest, toward the 
northern Mali issue, and has increased the capacity of al Qaeda 
in the Islamic Maghreb.
    The United States and allies have several initiatives to 
try to attempt to stem that flow. Most of them are on training 
and equipping efforts for both the Libyan army as well as the 
Libyan border control people who benefit from some of the 
training that we're doing.
    Then, the military-to-military relationships and the 
coordination that we're doing are all focused to try to get 
those under control and limit the ability of that to continue 
to migrate away from Libya and into the hands of terrorists.
    Senator Ayotte. Just so we understand--when we were on our 
trip, we also went to Egypt--those arms are being trafficked 
through the Sinai; the arms are going into Syria; they are also 
going into Mali and other places, where they're getting in the 
wrong hands. That continues, as we sit here today.
    General Rodriguez. Yes, ma'am, that continues, again, in 
all those directions, that's right. It's not only toward 
Africa, ma'am.
    Senator Ayotte. In eastern Libya right now, we have those 
military-to-military relations, but we don't have a position 
where the Libyan Government is actually stopping the transfer 
of those arms, right now, to the wrong people.
    General Rodriguez. Eastern Libya is the most destabilized 
place, and the militias--there's no state control of many of 
those militias, and that's a challenge that the government is 
dealing with right now.
    Senator Ayotte. So, we still really need to get much 
tougher on these arms. This is a dangerous situation, there 
have been reports that some of these arms may include 
Manportable Air-Defense Systems (MANPADS), correct?
    General Rodriguez. Yes, that's correct, ma'am.
    Senator Ayotte. I hope that, certainly, we need to take 
greater action on this, because these arms are very dangerous. 
They're getting into the hands of terrorists, and this is 
continuing. I look forward to supporting you and the 
administration to take whatever steps need to be taken to make 
sure that happens.
    I would also point out that I believe that this is one of 
the reasons when we think about the concept of a light 
footprint, and we're engaged in an area, that those arms should 
have been secured right following our involvement so that we 
weren't in the situation where we're chasing them around, 
trying to get them from dangerous individuals, who are then 
using it to attack us and our allies.
    General Rodriguez. Yes, ma'am.
    Senator Kaine. General Austin, General Rodriguez, a quick 
question. Would you agree with me that the number of troops in 
any theater is not an end, but it is a means to an end, a means 
to accomplishing a defined mission?
    General Rodriguez. Yes, sir.
    General Austin. Yes, sir.
    Senator Kaine. If you are each confirmed in your positions, 
do you agree that, at any time, if you think that the number of 
troops assigned, or the number of troops you're dealing with, 
is not sufficient to accomplish the end that you are charged 
with accomplishing, that you'll share that concern, under 
appropriate channels, with your colleagues and superiors?
    General Rodriguez. I will, sir.
    General Austin. I will.
    Senator Kaine. All right.
    Senator Graham.
    Senator Graham. If we told both of you that you're the only 
two soldiers left in Afghanistan, you would stay and fight to 
the end, wouldn't you?
    General Austin. If there's work to be done, Senator, I 
would.
    Senator Graham. Would you also tell us, ``We have a high 
opinion of ourselves, but the chance of success would be pretty 
low''?
    General Austin. That's correct.
    Senator Graham. Okay. What I want to know is, do you agree 
with me, General Austin, the last card to play in Afghanistan 
is the residual follow-on force, in terms of our presence of 
``closing the deal''? This is a very important decision to 
make.
    General Austin. Yes, sir, I would.
    Senator Graham. Okay. I appreciate that very much.
    Senator Kaine, you're absolutely right about numbers, but 
General Austin, is Iran watching what we're doing in the 
region?
    General Austin. They clearly are, sir.
    Senator Graham. Do you agree with that, General Rodriguez?
    General Rodriguez. Sir, everybody's watching what we're 
doing.
    Senator Graham. Okay. If Syria is deteriorating--and we 
seem to be leading from behind there--if Iraq is deteriorating, 
and we pick a number in Afghanistan that makes it a high 
likelihood of failure, that would be sending the wrong signals, 
do you agree, to the Iranians, if what I say is true?
    General Austin. I would, sir, I would agree with that.
    Senator Graham. Okay. If you had a recommendation of 8,000 
troops in 2014, by 2017 we would be down to 1,000, don't you 
think the enemy would be focusing on the 1,000, not the 8,000?
    General Austin. I clearly think that they would, sir. I 
think that would----
    Senator Graham. Yes. I think that everybody would be 
focusing on the low number, not the high number.
    I don't know what the numbers are going to be, but I do 
want to say this to the administration. I know the war is 
unpopular. I want to end it well. Like Senator Levin, I think 
we can be successful in Afghanistan. The key is their security 
forces. But, we have to have enough capability to keep them 
moving forward. I know the number General Allen picked.
    NATO will not stay, in any numbers, if we have 1,000 
troops. Do you agree with that? No NATO nation's going to get 
to our right.
    General Austin. That's my assessment, yes.
    Senator Graham. I'll wrap this up, Mr. Chairman, by saying 
that--I'll make some of my questions in writing--I believe 
we're at a pivotal moment in the war in Afghanistan, that NATO 
is not going to stay unless we show a willingness to stay 
beyond Kabul itself, and that the enemy will look at the bottom 
number, not the top number. But, if the President will follow 
General Allen's recommendations, within reason--and he's the 
President, not me; he has every right to pick the number; every 
military commander agrees with it, and I agree with that--but, 
as a member of the opposition party, and as somebody who cares 
about this, I will either stand with him or lodge my 
objections. I just want the administration to know that, if 
they can leave a sufficient force behind, beginning in 2014--
and it can be as low as 9,000 or 10,000--that I will stand with 
them, that I will keep funding the Afghan army, that I want 
this to turn out well. I know it won't be popular at home, but 
it's the right thing to do. I do want the administration to 
know, they have every right to make this decision, but if they 
overrule the commanders and create a force that cannot, in my 
view, be successful, I cannot, in good conscience, vote to 
continue this operation.
    Mr. Chairman, I can't think of a worse outcome for America 
than for us to lose in Afghanistan after a dozen years of 
fighting, bleeding, hundreds of billions of dollars. That's the 
place we were attacked from. How do you win in Pakistan if you 
lose in Afghanistan?
    Mr. Chairman, I will end with this thought. If we don't get 
this residual force right to continue the momentum, Afghanistan 
will fall apart quicker than Iraq, and all hell is going to 
break out.
    Thank you very much.
    Senator Kaine. Thank you, Senator.
    A third round of questions, also 3 minutes.
    Senator Ayotte.
    Senator Ayotte. General Rodriguez, would you consider Boco 
Haram a terrorist organization?
    General Rodriguez. Senator, Boco Haram has committed some 
acts that can be associated with terrorism. That's a policy 
decision that has to be made. If confirmed, I'll study that 
issue and make my recommendations on whether it gets classified 
as a terrorist organization, or not, ma'am.
    Senator Ayotte. I would very much like your opinion, given 
some of their activities, including a car bomb attack against 
the United Nations headquarters.
    General Rodriguez. Yes, ma'am.
    Senator Ayotte. I would certainly appreciate your opinion 
on that.
    [The information referred to follows:]

    Boco Haram has committed some acts that can be associated with 
terrorism. Designating Boco Haram as a terrorist organization is a 
policy decision. I will study this issue and make my recommendation on 
whether Boco Haram should be classified as a terrorist organization.

    Senator Ayotte. Also, General Rodriguez, in thinking about 
what happened in the attacks on our consulate in Benghazi, from 
your assessment--and obviously, you'll be taking over that area 
of responsibility, and you and I have talked about it--what are 
some of the lessons learned, do you think, from that?
    General Rodriguez. Ma'am, lessons learned, that both DOD 
and the Department of State are taken on as the gaps that were 
created--or were there, in intelligence--that didn't provide 
the sufficient indication or warnings for us to be able to 
respond properly. The security decisions that get made by the 
Department of State have to be well informed by the Department 
of Defense, so we need to do some closer cooperation there.
    Then, the response forces that are available to the 
combatant commanders need to be continually looked at and 
appropriate for the situations that are out there throughout 
the region.
    Senator Ayotte. You talked about the forces that would be--
as I understand it, going to Stuttgart, that we would have in 
place, that we didn't previously have in place--but, how's that 
response time, though, when you think about it? Because we're 
not going to be Djibouti or Aviano--and also, thinking about 
the air assets; will we have any AC-130s or anything that, if 
we had to go to that area again to respond--how would we handle 
it?
    General Rodriguez. Yes, ma'am. I think that, again, we'll--
if confirmed, place those requirements on the Department of 
Defense. Again, they'll have to make some risk decisions, based 
on the situation across the combatant command's area of 
responsibility, where to put those. The best we can do is to 
make sure everybody understands the risk that they're 
incurring, so we can make good decisions on where to keep our 
people and where not to keep our people.
    Senator Ayotte. I look forward to continuing to--as you're 
confirmed, to work with you on that. I think that's a challenge 
that we face in that area, and particularly with what we talked 
about, with the arms that are still flowing in that area, that 
are very dangerous, to a whole host of areas that are getting 
in the wrong hands of al Qaeda and other terrorist 
organizations.
    General Rodriguez. Yes, ma'am.
    Senator Ayotte. Thank you.
    Senator Kaine. Thank you, Senator Ayotte.
    I return the gavel to Chairman Levin.
    Chairman Levin [presiding]. Thank you so much.
    I very much appreciate, Senator Kaine, your taking over the 
gavel this morning.
    Just a few questions, if they haven't already been asked. I 
was trying to catch up to what questions were being asked.
    General Austin, in your judgment, are the Afghan security 
forces on track to assume the lead responsibility for security 
in Afghanistan, starting this spring?
    General Austin. My judgment's based upon my interaction 
with the commanders in the field. I was just recently in 
Afghanistan--during the Thanksgiving holiday--and, as I went 
around the country, the commanders that I talked to felt that 
the Afghans had developed significant capability, and were in 
the lead, in many cases, throughout the country. They were 
hopeful and very positive about where they were, and very 
hopeful that things would continue in the right direction.
    Based upon that assessment, I think the Afghans will be 
capable of taking the lead in the prescribed timeline.
    Chairman Levin. When Senator Jack Reed and I traveled to 
Afghanistan in January, we heard, from our military commanders, 
that the Afghan National Security Forces are in the lead 
already in the vast majority of operations and in the very 
challenging Regional Command East, that Afghan security forces 
were conducting operations by themselves in 87 percent of the 
operation. Have you heard that figure? If not, would that not 
be a very reassuring fact?
    General Austin. Sir, I've heard similar reports, and it is, 
indeed, reassuring. Again, I talk to both brigade commanders in 
that area and also the division commander, and they were very 
positive about the performance of the Afghan security forces.
    Chairman Levin. Thank you.
    One more question on Afghanistan, and that's a subject 
which I've gotten into repeatedly, and Senator Graham and I 
have worked together to make the same point, and that has to do 
with the future size of Afghan security forces. The current 
proposal is to reduce the size of the National Security Forces 
in Afghanistan by about a third after 2014, from 352,000 down 
to approximately 230,000. I believe it sends the wrong signal 
to the Afghans to do that. They are looking for reassurance 
that the United States and our allies are committed to an 
enduring relationship with Afghanistan. We wrote the President 
again last year--Senator Graham, Senator McCain, Senator 
Lieberman, myself--to convey that point. At the time when we 
are drawing down our troops, it is the wrong message to be 
drawing down or suggesting the drawdown of Afghan forces from 
their current level to a significantly lower level.
    I'm wondering, General Austin, whether or not you feel that 
we should keep the Afghan security forces at the 352,000 level 
beyond 2014.
    General Austin. Sir, I think keeping the larger-sized force 
would certainly, as you pointed out, reassure the Afghans. It 
would also reassure our NATO allies that we remain committed.
    In addition to that, sir, I think a larger Afghan force 
would help to hedge against any future Taliban mischief. You 
could reasonably expect that an enemy that's been that 
determined, that agile, will very soon, after we transition, 
begin to try to test the Afghan security forces. Further, I 
think that size of a force provides additional capability to 
allow the political processes to mature a bit. I think, because 
of that, it seems to me that a larger force would be of 
benefit.
    Chairman Levin. Thank you.
    Just one question for you, General Rodriguez, and this has 
to do with the in-extremis force that is desirable, and other 
contingency response forces that would be useful, to put the 
AFRICOM commander in a stronger position to respond to 
contingencies such as we saw in Benghazi. If you've not been 
asked that question, can you tell us whether you would look for 
ways to find the greater capability to provide contingency 
response forces, beyond what they currently are, and were, in 
the case of the Benghazi matter?
    General Rodriguez. Yes, Senator, I would. If confirmed, 
that will be one of the top priorities I have, and I'll report 
back to the committee on that. They've already made some 
significant improvements in that, and we have to continue to do 
that.
    Thank you.
    Chairman Levin. Thank you.
    Thank you both. We look forward to your confirmation.
    Again, I want to thank Senator Kaine for taking over this 
morning. It's very much appreciated.
    General Rodriguez. Thank you, sir.
    Chairman Levin. We will stand adjourned.
    [Whereupon, at 12:05 p.m., the committee adjourned.]

    [Prepared questions submitted to GEN Lloyd J. Austin III, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Department has made great progress in the joint arena 
since the enactment of Goldwater-Nichols. The Services and Joint 
competencies have proven their effectiveness and capabilities in more 
than a decade of war. While there is no room for complacency, I don't 
believe there is a need for any major modifications to the act.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not believe there is a need for any major 
modifications to the Goldwater-Nichols Act. Beyond the Act, however, 
Congress may want to look at ways to increase integration of non-
military agencies in appropriate training and force readiness 
environments in order to build a more effective whole-of-government 
approach to crisis prevention and resolution.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense, 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, U.S. Central 
Command (CENTCOM), to the following officials:
    The Secretary of Defense.
    Answer. Subject to direction from the President, the Commander, 
CENTCOM performs duties under the authority, direction and control of 
the Secretary of Defense. In addition, the Commander, CENTCOM is 
responsible to the Secretary of Defense for the preparedness of the 
command to carry out its missions.
    Question. The Under Secretaries of Defense.
    Answer. Commander, CENTCOM coordinates and exchanges information 
with the Under Secretaries of Defense as needed to set and meet CENTCOM 
priorities and requirements for support.
    Question. The Assistant Secretaries of Defense.
    Answer. Commander, CENTCOM coordinates and exchanges information 
with the Assistant Secretaries of Defense as needed to set and meet 
CENTCOM priorities and requirements for support.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. The Chairman is the principal military advisor to the 
President, National Security Council and the Secretary of Defense. 
Section 163 of title 10, U.S. Code, allows communication between the 
President or the Secretary of Defense and the combatant commanders to 
flow through the Chairman. As is custom and traditional practice, and 
as instructed by the Unified Command Plan, I would communicate with the 
Secretary through the Chairman of the Joint Chiefs of Staff. I 
anticipate a close dialogue with the Chairman on all significant 
matters.
    I would communicate and coordinate with the Vice Chairman of the 
Joint Chiefs of Staff as required and in the absence of the Chairman of 
the Joint Chiefs of Staff.
    Question. The Service Secretaries and Service Chiefs.
    Answer. The Secretaries of the Military Departments are responsible 
for the administration and support of forces assigned to the combatant 
commands. Commander, CENTCOM coordinates closely with the Secretaries 
to ensure that requirements to organize, train, and equip forces for 
CENTCOM are met.
    Commander, CENTCOM communicates and exchanges information directly 
with the Service Chiefs to facilitate their responsibility for 
organizing, training and equipping forces. Successful execution of the 
CENTCOM mission responsibilities requires close coordination with the 
Service Chiefs. If confirmed, I intend to work closely with the Service 
Chiefs to understand the capabilities of their Services to clearly 
communicate to them the CENTCOM theater's requirements and to ensure 
effective employment of the Services' capabilities in the joint and 
coalition execution of the CENTCOM mission.
    Question. Commander, U.S. Special Operations Command.
    Answer. Commander, CENTCOM maintains a unique relationship with 
Commander, U.S. Special Operations Command, due to the volume of 
collaboration required to successfully execute missions within the area 
of responsibility. Our relationship, like those with other combatant 
commanders, is critical to the execution of our National Military 
Strategy and characterized by mutual support, frequent contact and 
productive exchanges of information on key issues.
    Question. The other combatant commanders.
    Answer. Commander, CENTCOM maintains a close relationship with 
other geographic and functional combatant commanders. These 
relationships are critical to the execution of our National Military 
Strategy and are characterized by mutual support, frequent contact and 
productive exchanges of information on key issues.
    Question. Commander, North Atlantic Treaty Organization (NATO) 
International Security Assistance Force (ISAF), Afghanistan/Commander, 
U.S. Forces-Afghanistan (USFOR-A).
    Answer. Commander, CENTCOM maintains operational control (OPCON) 
over U.S. Forces assigned to NATO-ISAF in his role as the Commander, 
USFOR-A, which is CENTCOM's current main effort and top priority for 
mission support. For forces further assigned from USFOR-A to NATO-ISAF, 
this OPCON authority is largely transferred to Joint Forces Command 
Brunssum and Supreme Allied Commander Europe as ``NATO-OPCOM''. Thus 
mission direction for NATO-ISAF is a shared responsibility between 
CENTCOM and SACEUR chains of command. For this reason we moderate any 
interactions with Commander NATO-ISAF by close coordination with 
Commander JFC Brunssum and SACEUR.
    Question. The respective U.S. Chiefs of Mission within the CENTCOM 
AOR.
    Answer. Commander, CENTCOM maintains a close working relationship 
with all U.S. Ambassadors to countries in the CENTCOM region. We 
coordinate carefully to ensure that operational and security 
cooperation activities remain consistent with each Ambassador's 
priorities and Mission Strategic Plan as needed to ensure unity of 
effort between U.S. military and other U.S. Government activities in 
the CENTCOM region.
    Question. The respective U.S. Senior Defense Officials/Defense 
Attaches (SDO/DATT).
    Answer. Commander, CENTCOM is in the rating scheme for Defense 
Attaches and maintains close relationships and coordination with Senior 
Defense Officials. The commander relies on the SDOs to provide the 
information necessary to ensure that CENTCOM's security cooperation 
activities stay in-step with each Ambassador's priorities and Mission 
Strategic Plan.
                             qualifications
    Question. If confirmed, you will be entering this important 
position at a critical time for CENTCOM.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. Over the course of my 37-plus years serving in the U.S. 
military, I have commanded at every level, to include at the Corps and 
Theater levels. I spent much of the past decade commanding forces 
throughout the CENTCOM region. At the two-star level, I commanded 10th 
Mountain Division and Task Force-180 in Afghanistan. At the three-star 
level, I commanded Multi-National Corps-Iraq. Most recently, as 
Commander of U.S. Forces-Iraq, I commanded all forces in that country 
and oversaw the successful transfer of responsibilities to the Iraqi 
Security Forces and U.S. State Department representatives, as well as 
the transition of military forces and equipment out of Iraq. I have 
worked closely with partners from across the Interagency and have 
existing relationships with civil and military leaders throughout the 
CENTCOM AOR. My past experiences have afforded me an in-depth 
understanding of the nuanced challenges and opportunities that exist in 
that region of the world. I also served previously as Director of the 
Joint Staff and as CENTCOM Chief of Staff. These experiences have 
provided me with an understanding of the command as well as some of the 
relationships and processes that exist at the highest levels.
                   major challenges and opportunities
    Question. If confirmed as the Commander of CENTCOM, you will be 
responsible for all military operations in the CENTCOM area of 
responsibility.
    In your view, what are the major challenges and opportunities that 
would confront you if you are confirmed as the next Commander of 
CENTCOM?
    Answer. The Middle East represents an extremely complex and dynamic 
environment. Ethnic, sectarian and ideology-based conflicts are 
continuing to play out within countries and between countries across 
the region. Challenges abound; as do opportunities. Among the many 
challenges we are faced with is the significant threat posed by violent 
extremist organizations. Our priorities in the near-term are: (1) 
Afghanistan--we must continue to support the mission, with some 66,000 
servicemembers still serving in country; (2) Iran--we want to see a 
non-nuclear Iran that respects its neighbors; (3) Syria--we would like 
to see an end to the civil war and a stable government; and (4) The 
broader Middle East--we want a region where stability and security 
prevails; we want the conditions set to allow for economic growth and 
opportunity; and, representative government that is underpinned by rule 
of law. In general, we want a region where all States play a 
constructive role in managing and maintaining stability. Our key 
opportunities lie in the domain of collective security and building 
regional partners' security capacities. Many of our partners in the 
region have shown interest and made steady progress to date in taking 
on their share of regional security. We will continue to encourage this 
interest and capacity building across the region.
    Question. If confirmed, what plans do you have for addressing these 
challenges and opportunities?
    Answer. I will address these challenges and opportunities using 
four principle levers: military-to-military engagements, plans and 
operations, security cooperation programs, and posture and presence. 
CENTCOM will employ these levers always focused on working by, with and 
through our partners to the greatest extent allowable to bolster 
regional security and promote stability. Military-to-military 
engagements lay the foundation for and bolster our broader diplomatic 
and political relationships. It is often the bedrock of the 
relationship and affords us the trust necessary to dialogue quietly 
about contentious issues. Plans and operations are developed and 
executed in conjunction with our fellow combatant commands, interagency 
organizations and international partners as necessary to address 
developing contingency and crisis situations. Security Cooperation 
Programs build partner capacity as the responsible way to reduce U.S. 
presence in the region and effectively support their ability to carry 
more of the region's security burden. Posture and presence in the 
future will be leaner but supported by a base infrastructure that 
enables rapid reinforcement.
    Question. One challenge with which you may have to deal, if 
confirmed, is the impact of the combination of sequestration and the 
Continuing Resolution on the ability of the Military Services to meet 
the demands of the combatant commanders as well as the execution of 
your operating budget. Admiral Winnefeld, the Vice Chairman of the 
Joint Chiefs of Staff was recently quoted as saying, ``We are taking a 
very close look at how we `appetite suppress' some of the demand 
signals that are out there,'' he said. ``We find that there are some 
forces out there in the world today that have been asked for and have 
been provided to (combatant commanders) that might be servicing a lower 
level of interest.''
    What is your understanding and assessment of the impact of pending 
Defense budget cuts to CENTCOM's operational planning, requests for 
forces, and operating budgets? If confirmed, how would you prioritize 
the use of available funds?
    Answer. All Service Chiefs have been clear and consistent in saying 
that sequestration will have devastating impacts on operations. That 
said, they've also been clear in stating that they will continue to 
support the ongoing operations in Afghanistan, first and foremost. But, 
there is shared concern about the impact of cuts on the readiness of 
forces responding to emerging contingencies. If confirmed, I will 
continue to work closely with the Military Service components to 
address any concerns they have with meeting our high priority 
operational requirements. I will also defend the authorities which 
support our strategic partnerships which are vital to our ability to 
promote regional security and stability throughout the region.
    Question. In your opinion, what are your considerations or 
alternatives if an adequate aircraft carrier presence in the Gulf 
cannot be sustained by the Navy beyond March 2013?
    Answer. The prudent measure is to maintain continuous aircraft 
presence in the Arabian Gulf region, with two carriers in assessed 
periods of heightened risk. Maintaining a credible naval force in the 
region covered by sufficient aviation combat power is essential for 
demonstrating an enduring commitment to regional partners, building 
trust and relationships, and the rapid projection of power in a crisis. 
While naval and air component commanders continue to work alternative 
strategies to deliver combat power in the Arabian Gulf from a single 
carrier positioned outside of the Gulf, these alternatives are 
predicated upon uninterrupted access to overseas bases and facilities.
    Question. If sequestration were to occur, what would be your 
assessment of the level of risk to the U.S. national security 
objectives in the CENTCOM AOR?
    Answer. Sequestration would significantly increase the risk to 
ongoing missions in the CENTCOM AOR. Certainly we can expect that if 
sequestration occurs those units that are required to address emerging 
challenges will be less ready than in the past or have less capability. 
While the effects of sequestration will negatively impact all of the 
services and combatant commanders, sequestration will arguably have the 
greatest operational impact on the CENTCOM AOR due to geography, the 
pace of ongoing combat operations and the likelihood of numerous 
contingencies.
                       defense strategic guidance
    Question. The Defense Strategic Guidance, ``Sustaining U.S. Global 
Leadership: Priorities for the 21st Century Defense'', announced by 
President Obama on January 5, 2012, includes, among other things, the 
intention of the administration and the Pentagon to ``rebalance toward 
the Asia-Pacific region.'' In his associated remarks, Secretary Panetta 
explained that the ``U.S. military will increase its institutional 
weight and focus on enhanced presence, power projection, and deterrence 
in Asia-Pacific. . . . At the same time, the United States will place a 
premium in maintaining our military presence and capabilities in the 
broader Middle East.''
    What do you anticipate will be the impact of this guidance on the 
operations and activities of CENTCOM?
    Answer. The guidance does increase emphasis on the Asia-Pacific 
region while enhancing U.S. technological capabilities in the PACOM 
area of responsibility (AOR). However, our Defense Strategic Guidance 
reflects a global strategy. The world we live in remains complex and 
extremely volatile. In fact, much of the instability resides in the 
CENTCOM AOR where significant challenges persist. While I understand 
that in an era of constrained resources we must prioritize; the 
combatant commander is responsible for ensuring that, at all times, the 
command is postured to protect vital national interests in the region. 
If confirmed, I will continue to assess conditions in the CENTCOM AOR 
and request the resources required to sustain operations.
                          readiness of forces
    Question. What is your assessment of the readiness of U.S. Forces 
that have been deployed to Operation Enduring Freedom?
    Answer. Our forces are the best-trained, best-equipped, and most 
experienced in our Nation's history; and, that includes forces deployed 
to Afghanistan in support of Operation Enduring Freedom (OEF). Pre-
deployment training at the various joint training centers provides 
tailored counterinsurgency scenarios and incorporates up-to-the-minute 
lessons learned from troops on the ground in Afghanistan. I have worked 
hard in my current position as Vice Chief of Staff of the Army to 
ensure that all levels of command are appropriately focused on ensuring 
the continued and future readiness of U.S. Forces in theater.
    Question. Have you observed any significant trends in or apparent 
gaps with respect to personnel, equipment, or training readiness in 
units as they deploy to or upon their arrival in Afghanistan?
    Answer. No. Overall, the readiness of units arriving in the AOR has 
been high and the Services have done well preparing units to deploy. 
Where issues have arisen, the Services have been adaptive and they have 
routinely incorporated feedback from theater thereby making necessary 
adjustments in force preparations.
    Question. What are your views, if any, on the growing debate over 
whether U.S. Forces are putting too much emphasis on preparing for 
counterinsurgency and irregular warfare operations or too little 
emphasis on preparing for high intensity force-on-force conflict and 
full spectrum operations?
    Answer. This debate reflects how the U.S. military has adapted over 
the past decade-plus of war. Army doctrine reflects this adaptation, 
stating that our formations must be capable of performing unified land 
operations across a broad range of operations: offense, defense, 
stability, and defense support to civil authorities. There is a 
recurring dialogue between commanders at all echelons to ensure that 
there is a shared understanding of the essential tasks that must be 
trained. The commanders' assessment of the situation, mission, time, 
and resources drives how commanders execute unit training and 
preparation. Ultimately, this is a dynamic process. It is at the heart 
of the military's efforts to build and sustain readiness, and it 
ensures that our formations are capable of accomplishing the mission 
across the full range of operations.
    Question. What is your opinion on adding a third maneuver battalion 
to the Brigade Combat Team structure?
    Answer. The addition of the third maneuver battalion will greatly 
enhance the depth, versatility and combat capability of our Brigade 
Combat Teams (BCT). Analysis shows that the redesigned BCT will provide 
equal capacity to meet combat commander demand while providing a more 
robust formation at the point of decision. The three battalion design 
is more lethal, survivable and flexible. Importantly, it also increases 
the commander's options as the formations execute operations across the 
full range of military operations. Ultimately, the addition of the 
third maneuver battalion is a key development for the Army as it 
transitions from current fight and postures for the next conflict.
                 afghanistan counterinsurgency strategy
    Question. Do you support the counterinsurgency strategy for 
Afghanistan?
    Answer. Yes, I support the current approach of: (1) building Afghan 
National Security Forces (ANSF) capacity; (2) countering violent 
extremist organizations; and (3) setting conditions for final transfer 
to ANSF control and change of mission by the end of December 2014.
    Question. If confirmed, are there changes you would recommend to 
the U.S. strategy in Afghanistan?
    Answer. The current strategy is showing progress; and, I have every 
confidence in the commanders leading the effort. That said, if 
confirmed, I will continually assess the situation on the ground, 
consult with U.S. leaders, partners, regional leaders and NATO 
commanders and provide my best military advice on this matter to my 
chain of command. I will also follow up with the members of this 
committee, as requested.
    Question. What is your assessment of the progress of the campaign 
in Afghanistan?
    Answer. Efforts to counter the insurgency and prevent terrorist 
safe havens have been and remain effective. Coalition operations have 
continued to focus on degrading insurgent networks while building the 
capacity of our ANSF partners to maintain security. We were largely 
successful during the 2012 fighting season and we met our campaign 
objective to force the enemy out of population centers. We continue to 
transition the responsibility for security to the ANSF and we have seen 
a decrease in violence in areas under ANSF responsibility. That being 
said, challenges remain--particularly in areas along the border with 
Pakistan and areas in southern Afghanistan where the Taliban continues 
to operate. There also remain the dual challenges of narcotics and 
corruption that threaten long-term stability. Afghanistan's nascent 
government and upcoming elections scheduled for 2014 also pose 
significant challenges with respect to maintaining the gains achieved 
in recent years.
                   security transition in afghanistan
    Question. President Obama and Afghan President Karzai recently 
announced that the transition to an Afghan lead for security throughout 
Afghanistan will occur this spring, a few months ahead of schedule. As 
part of the ongoing transition, coalition forces are shifting 
increasingly to an advise-and-assist mission but will continue to 
support Afghan security forces until the International Security 
Assistance Force (ISAF) mission concludes by no later than the end of 
2014.
    Do you support the announced transition of the security lead to 
Afghan security forces throughout Afghanistan by this spring?
    Answer. Yes, I support plans for ANSF assuming the lead for 
security across all of Afghanistan by mid-2013, as agreed to at the 
Chicago NATO Summit in May 2012. The current security situation and 
capability of ANSF supports continued adherence to the transition plan. 
Afghans have already assumed the lead through much of the country and 
have validated NATO's incremental decisions to make these transfers. 
That said, we will certainly incorporate lessons learned from our 
experiences in Iraq. Among them we recognize that ISAF will be called 
upon to provide critical enablers and advisory support to the ANSF as 
they assume the lead for security operations. ISAF will also be 
required to maintain sufficient combat power to respond to 
contingencies and conduct operations alongside the ANSF.
    Question. Do you support the shift in the mission of coalition 
forces to an increasingly advise-and-assist role in support of Afghan 
security forces?
    Answer. Yes. The current situation supports the shift to an advise-
and-assist mission in support of ANSF. If confirmed, I will monitor 
changing conditions and dialogue with commanders, regional leaders and 
partners to ensure the situation supports the employment of general 
purpose forces in a Security Force Assistance (SFA) role. Balanced SFA 
enables ISAF to provide tailored forces that support sustainable 
development of the ANSF as they move into the lead, as well as special 
and general purpose forces to support developing Afghan Army and Police 
operations through 2014. The ultimate aim is to build ANSF capacity and 
set conditions for them to assume lead for the security of their 
country. Much like in Iraq, as the ANSF capabilities and capacity 
improve, coalition forces will provide less frequent training and 
advice at the lower levels and focus efforts at the higher echelons to 
better integrate our enabler support.
    Question. Do you agree that the success of the mission in 
Afghanistan depends on having Afghan security forces, rather than 
coalition forces, taking the lead for security and conducting 
unilateral operations to the maximum extent?
    Answer. Yes. History has shown that indigenous forces are best 
suited to assume lead responsibility for the security of their country. 
A great deal of the country has already transitioned to ANSF in the 
lead, and we have seen low levels of violence in these transitioned 
areas. ISAF will continue to provide critical enablers and advisory 
support to ANSF formations as they assume lead responsibilities.
    Question. What is your assessment of the capacity and performance 
of the Afghan security forces in assuming the lead for security in 
areas designated for transition, including in contested areas?
    Answer. Over the past several years, we have helped grow the ANSF 
into a force that will eventually reach 352,000. The ANSF is steadily 
improving in military capability and professionalism. There is still 
work to be done before they will be self-sufficient and capable of 
providing sustainable security for the long term. However, the ANSF is 
on track to assume full security responsibility across Afghanistan by 
the end of 2014. During 2012, the Afghan National Army demonstrated 
their ability to plan, conduct and sustain large-scale operations. 
Their combat enabler capabilities are still developing due to late 
fielding, but they are improving in their ability to conduct fire 
support, rotary wing support and even limited medical evacuation.
    Question. Do you believe that a responsible transition of the 
mission for U.S. Forces in Afghanistan from combat to a support role 
should be based on conditions on the ground in Afghanistan?
    Answer. Yes. If confirmed, I will work closely with leaders in 
theater, to include General Dunford, to assess the conditions on the 
ground and provide my best military advice with respect to the 
transition of mission to my chain of command.
    Question. Under the current conditions in Afghanistan, would you 
support making such a transition by no later than the end of 2014?
    Answer. I support the current plan to complete the transition by 
the end of 2014, per the President's policy. If confirmed, I will 
continue to assess the situation, along with the leaders on the ground, 
and provide my best military advice on the timeline and related 
transition requirements.
    Question. What conditions, if any, would drive you to recommend to 
the President to not transition from a combat to a support role?
    Answer. We are transitioning from leading partnered 
counterinsurgency operations to providing Security Force Assistance 
through training, advising and assisting the ANSF based on the current 
assessment of conditions on the ground. A number of factors were 
considered when making the decision on pace and course of our 
transition efforts. Indeed, it would be difficult to name a single 
factor that would drive a commander to recommend a change to the 
current plan. If confirmed, I will continue to assess conditions on the 
ground and provide my best military advice to my chain of command.
                draw down of u.s. forces in afghanistan
    Question. In September 2012 the drawdown of the 33,000 U.S. surge 
force in Afghanistan was completed, bringing U.S. troop levels down to 
approximately 68,000. President Obama recently reaffirmed his pledge to 
continue the drawdown of U.S. Forces from Afghanistan at a steady pace. 
He also stated he would soon announce the next phase of the U.S. 
drawdown based on the recommendations of the ISAF Commander and other 
commanders on the ground in Afghanistan.
    What is your understanding of the missions to be conducted by any 
residual U.S. Force that may remain in Afghanistan after 2014?
    Answer. My understanding of the missions to be conducted by 
residual U.S. Forces remaining in Afghanistan after 2014 will be 
counterterrorism; train, advise, and assist the ANSF; and provide 
support to Department of State civilian missions. Most importantly, 
force protection is inherent in everything we do in theater.
    Question. In your current position as Vice Chief of Staff of the 
Army, have you provided any recommendations on the size and missions of 
any residual U.S. Force that may remain in Afghanistan after 2014?
    Answer. No.
    Question. Based on your experience as the Vice Chief of Staff of 
the Army and your experience in the Iraq drawdown, what missions and 
force size do you recommend for a residual U.S. Force in post-2014 
Afghanistan?
    Answer. I am not currently in a position to provide such a 
recommendation. I would defer to the current CENTCOM commander and the 
commander on the ground to provide their recommendations.
    Question. In your view, how should the requirement to provide force 
protection for our troops be taken into consideration in any decision 
on the size of a residual U.S. Force in Afghanistan post-2014?
    Answer. Force protection is an inherent part of everything we do 
and therefore must be included in the planning effort.
    Question. How does the early transition to Afghan lead for security 
announced by Presidents Obama and Karzai impact our mission and 
objectives for the 2013 and 2014 fighting seasons?
    Answer. The transition is and has always been conditions and 
capability based. The early transition announcements reflect the 
improving security situation in Afghanistan and ANSF's capabilities to 
assume the lead and should have no impact on our mission objectives.
    Question. What force structure do you think is appropriate for the 
2013 and 2014 fighting seasons?
    Answer. If confirmed, I will assess the force structure 
capabilities and capacities that we will maintain over the next 2 years 
to ensure they continue to meet our objectives. We will transition to 
full security lead by the Afghans in the spring and we will need to 
ensure that we have set the proper conditions for successful elections 
in 2014. We will also need to ensure that we have the proper forces to 
smoothly transition to the train, advise and assist mission by December 
2014.
    Question. What, in your view, should be the pace of reductions in 
U.S. Forces during each of 2013 and 2014?
    Answer. This is an operational maneuver. As such, the pace of 
reductions should be based on the commander's assessment, the enemy 
situation, conditions on the ground, to include ANSF capabilities, and 
mission requirements in order to maintain the campaign's momentum and 
to avoid jeopardizing the gains we have made. At the same time, we must 
be clear that we will not abandon Afghanistan. This is a decisive time 
in the country's history and decisions we make now regarding degrees of 
support, how the U.S. drawdown proceeds, to include the preservation of 
enablers in terms of logistics, medical evacuation, communications, and 
air support will be essential for our partners.
                         logistical challenges
    Question. What is your assessment of the speed and reliability of 
logistical convoys through the Pakistan Ground Lines of Communication 
(GLOC) to support our forces in Afghanistan?
    Answer. Movement in Pakistan is subject to a number of recurring 
challenges including environmental conditions, political factors and 
the ongoing security situation. We have cleared out nearly all cargo 
previously stranded in Pakistan as a result of the closure that began 
in November of 2011, and we recently commenced test shipments of new 
cargo. We anticipate challenges as the Government of Pakistan (GOP) 
struggles internally to implement new transit processes that were 
agreed to during 2012. The GOP appears committed to resolving these 
issues and facilitating successful, sustained cargo movement. It is our 
intent to use the PAK GLOC consistent with route capacities, GOP 
capabilities, the security situation, and environmental conditions.
    Question. In your view, what improvements, if any, need to be made 
in light of the logistical throughput rate of the Pakistan GLOC?
    Answer. The current proven capacity of the PAK GLOC will support 
the volumes that we anticipate being shipped via Pakistan. 
Infrastructure improvements are not required to support anticipated 
volumes, but may provide a positive impact supporting longer term 
nation building, transit and trade in the region.
    Question. To what extent has CENTCOM developed a common operating 
picture to improve its processes for tracking equipment and supplies in 
Afghanistan?
    CENTCOM leverages both automated systems of record and manual 
reporting processes to obtain a common picture of equipment and 
supplies in Afghanistan. In addition, CENTCOM is partnering with the 
Joint Staff and U.S. Transportation Command (TRANSCOM) to develop a 
common operating picture to track the end-to-end retrograde process.
    Question. General Austin, you served as the Commanding General of 
U.S. Forces-Iraq during the withdrawal of U.S. Forces from Iraq 
consistent with the 31 December 2011 deadline in the U.S.-Iraq Security 
Agreement.
    Taking into account your experience in Iraq, what are the biggest 
risks and mitigation strategies associated with drawing down U.S. 
Forces from Afghanistan and retrograding military equipment to the 
United States?
    Answer. The geographic and topographic complexities of Afghanistan 
will make the retrograde of materiel and personnel very challenging. 
The largest risk to retrograde operations is the threat of disruption 
to PAK GLOC and the Northern Distribution Network (NDN) operations. To 
mitigate this risk, the CENTCOM Materiel Recovery Element (CMRE) was 
established to increase both volume and velocity of retrograde efforts. 
Transition and retrograde will also need to be conducted while 
contending with an able and determined enemy. As the size of our 
footprint shrinks, force protection and availability of enablers will 
increase in importance.
    Question. How do you intend to address any conflicts between the 
objectives of mission accomplishment in the 2013 and 2014 fighting 
seasons and the logistical challenge of drawing down forces and 
retrograding military equipment?
    Answer. The accomplishment of our mission in 2013 and 2014 fighting 
seasons will be inextricably linked to the imperative of drawing down 
forces and retrograding equipment. The drawdown and retrograde are in 
themselves significant military operations that must be fully nested 
within the ground tactical plan and plans for operational maneuver. 
Fighting season considerations, force levels and retrograde actions 
cannot be considered in isolation. The ground commander must plan 
operations, assess risk and mitigate conflicts as a whole to ensure all 
efforts within theater are nested and synchronized.
               status of forces agreement for afghanistan
    Question. As called for in the Enduring Strategic Partnership 
Agreement signed in May, the United States and Afghanistan are holding 
talks on a Bilateral Security Agreement, which will provide essential 
protections for any limited U.S. military presence in Afghanistan after 
2014.
    Do you agree that it is essential that any status of forces 
agreement for U.S. military forces in Afghanistan after 2014 provide 
immunity for U.S. troops from prosecution in Afghan courts?
    Answer. Yes. Exclusive jurisdiction is an essential requirement.
    Question. If confirmed, would you recommend that the United States 
withdraw its military forces from Afghanistan if those forces do not 
have such immunity?
    Answer. Yes. Without jurisdiction over our troops, our activity in 
Afghanistan must be limited to traditional security assistance. Combat 
and training activities cannot be conducted without this protection.
    Question. Based on your experience in the Iraq drawdown, what are 
the risks associated with removing all U.S. military forces from 
Afghanistan?
    Answer. Removing all U.S. military forces threatens the 
achievements gained in Afghanistan over the last 12 years of sustained 
combat. Such a withdrawal could open the door to a return of al Qaeda, 
collapse of the Government of the Islamic Republic of Afghanistan and 
lead to increased instability in the region. Also, it could delay the 
maturation of Afghan forces at a critical point in their development.
                  afghanistan national security forces
    Question. What is your assessment of the progress in developing a 
professional and effective Afghanistan National Security Forces (ANSF)?
    Answer. ANSF operational effectiveness continues a general upward 
trend as they continue to improve and professionalize. The ANSF have 
increasingly taken the lead in areas previously secured by U.S. surge 
forces, and have been able to expand their reach, occupying patrol 
bases and combat outposts that had previously been too dangerous to 
hold. The ANSF have also increased their abilities to plan, carry out, 
and sustain high-level kinetic actions involving multiple ANSF forces.
    Question. What is your assessment of the capacity of the ANSF to 
take the security lead and to conduct unilateral operations?
    Answer. The ANSF have made substantial progress during the past 
year, and are steadily building a force that will assume full 
responsibility for security operations throughout Afghanistan by the 
end of 2014. The ANSF are unilaterally conducting the vast majority of 
operations in Afghanistan, although many of these are routine patrols. 
Force generation and development efforts continue to yield advancements 
in operational effectiveness. During the previous year, ANSF made 
strides in performance, increasingly moving into the lead for security 
operations. As of the end of the last reporting period, ANSF partnered 
with ISAF on more than 90 percent of all operations and was in the lead 
in more than 50 percent of these actions.
    Question. What do you see as the main challenges to building the 
capacity of the ANSF and, if confirmed, what recommendations, if any, 
would you make for addressing those challenges?
    Answer. There are five key challenges to building the capacity and 
capability of the ANSF: leadership, logistics, counter-IED, attrition 
and literacy. Counter-IED continues to pose a significant challenge. 
Attrition rates have improved; however, we must continue to monitor 
levels. We must also continue to help the ANSF to professionalize the 
force; train and develop leaders; build their enabler capacity; and, 
further expand literacy which will have a lasting impact on the 
country. If confirmed, I will work closely with General Dunford to 
ensure that he has the resources necessary to develop a sufficient and 
sustainable ANSF that can operate independently of coalition 
assistance.
    Question. Do you support plans for building and sustaining the ANSF 
at 352,000 personnel?
    Answer. Yes. The target end strength provides the capacity for 
achieving security and stability in Afghanistan.
    Question. Do you agree that any reductions in the ANSF from this 
352,000 level should be based on security conditions in Afghanistan at 
the time those reductions would be expected to occur?
    Answer. Yes. A sufficient and sustainable ANSF is necessary for 
Afghanistan's long-term stability and security. The current ANSF 
sustainment plan will maintain Afghan forces at surge strength of 
352,000 through 2018, to allow for continued progress toward a 
sustainable secure environment in Afghanistan. As security conditions 
on the ground continue to improve, ANSF will undergo a gradual, managed 
force reduction to a final force structure that is both adequate to 
meet security requirements and fiscally sustainable in the long term.
                             insider threat
    Question. In 2012 the number of so-called ``green-on-blue'' 
incidents, in which ANSF personnel or ANSF impersonators attacked U.S. 
or coalition soldiers, increased significantly. The rise in the number 
of insider attacks has led U.S. and Afghan military leaders to take a 
number of precautions against such insider threats, including expanding 
Afghan counterintelligence efforts to identify possible Taliban 
infiltrators, increasing cultural sensitivity training, and expanding 
the ``Guardian Angel'' program to protect against the insider threat in 
meetings between coalition and Afghan forces.
    What in your view are the causes of the increase in insider attacks 
and what has been their impact on the military campaign in Afghanistan?
    Answer. Insider attacks are an insurgent tactic designed to create 
a seam and sow mistrust between ISAF and ANSF forces. Most likely the 
increase in insider attacks reflects a combination of factors including 
the increase in the number of ANSF personnel and a greater number of 
Coalition Force (CF) trainers living and working with the ANSF. 
Overall, these attacks, while tragic, have not had a significant impact 
on the campaign.
    Question. What is your assessment of the impact of these green-on-
blue attacks on the level of trust between coalition and Afghan forces?
    Answer. Clearly these types of attacks have the potential to impact 
morale and to compromise bonds among coalition members. However, during 
my recent visit to Afghanistan I did not see indications of either low 
morale or mistrust among coalition and Afghan forces.
    Question. What is your assessment of the measures that have been 
taken by ISAF and Afghan leaders to address the insider threat? Are 
there additional steps that you would recommend to address this threat, 
if confirmed?
    Answer. Since January 2012, there has been a significant increase 
in the ISAF and ANSF efforts to mitigate insider attacks. In August 
2012, ISAF and the ANSF forces formed the Insider Threat Action Group 
and the Insider Threat Mitigation Team to jointly identify and 
implement insider threat mitigation efforts. Steps are being taken by 
Afghans to institute a number of insider threat countermeasures and 
supplement the vetting process in order to remove undesirable members 
of the ANSF. If confirmed, I will work closely with the Commander, 
ISAF, to ensure appropriate measures are being taken and the necessary 
resources allocated to protect coalition forces.
    Question. In light of the spike in insider attacks, do you see a 
need to reconsider current plans for embedding small Security Force 
Assistance Teams of U.S. military advisors with Afghan military units 
to assist in the transition to an Afghan security lead?
    Answer. Presently, no; but, this is a critical question and if I am 
confirmed, I will work with General Dunford as conditions warrant to 
evaluate the potential risks to our embedded advisors as transition 
progresses.
                             reconciliation
    Question. In your view, what should be the role of the United 
States in any reconciliation negotiations with the Afghan Taliban and 
other insurgent groups?
    Answer. Achieving a durable peace in Afghanistan will require some 
form of political settlement among Afghans. That settlement must 
ultimately be brokered among the Afghans themselves. Afghanistan is 
adamant that the Afghan Government must maintain control of any 
reconciliation negotiations. The U.S. role should acknowledge that the 
Afghanistan Government is the lead for reconciliation and focus on 
acting as a mediator and encouraging other nations to play a 
constructive role.
    Question. What additional steps, if any, should the United States 
be taking to advance the reconciliation process?
    Answer. The United States could work to bring other key AOR 
partners with a vested interest in securing a stable Afghanistan into 
the reconciliation dialogue to offer their assistance in support of the 
peace process.
    Question. In your view, what should be the role of Afghanistan's 
neighbors, in particular Pakistan, in the reconciliation process?
    Answer. Neighbors in the region have legitimate interests in 
Afghanistan and need to play a constructive role in the reconciliation 
process. Specifically Pakistan must take steps to ensure that militant 
and extremist groups cannot continue to find safe haven in Pakistani 
territory. It should actively support the Afghan-led process. 
Ultimately, Pakistan and the other regional neighbors will benefit from 
improved stability in Afghanistan.
                   special operations in afghanistan
    Question. Special Operations Forces depend on general purpose 
forces for many enabling capabilities, including intelligence, 
surveillance, and reconnaissance (ISR); logistics; and medical 
evacuation. Admiral McRaven, Commander of U.S. Special Operations 
Command, has said ``I have no doubt that special operations will be the 
last to leave Afghanistan'' and has predicted that the requirement for 
special operations forces may increase as general purpose forces 
continue to be drawn down.
    If confirmed, how would you ensure adequate enabling capabilities 
for Special Operations Forces (SOF) as general purpose forces continue 
to draw down in Afghanistan?
    Answer. If confirmed, I will work with SOCOM to assess SOF enabling 
requirements and source them with existing CENTCOM assets or through 
the request for forces process.
    Question. The find-fix-finish operational model is greatly enhanced 
by opportunities to capture and interrogate enemy personnel, but that 
capability may be eroded as the U.S. military and intelligence 
footprint is reduced. An inability to mount capture operations could 
lead to a greater emphasis on lethal actions, potentially affecting 
public opinion.
    What long-term risks are imposed on counterterrorism operations in 
Afghanistan as a result of fundamental changes in the operational 
environment for SOF?
    Answer. As coalition and U.S. SOF are reduced in size and scope 
with the drawdown, the ANSF will play an ever-increasing greater role 
in counterterrorism. U.S. and coalition operational risk is reduced as 
these forces step back and settle into a train, advise and assist 
capacity. Long-term strategic risk lies with the capability and 
capacity of ANSF SOF to efficiently and effectively execute 
counterterrorism. However, this risk is also reduced through adequate 
ANSF SOF training and with the provision of adequate operational 
enablers to ANSF SOF.
    Question. Last April, the United States and Afghanistan signed a 
Memorandum of Understanding (MOU) on the ``Afghanization'' of direct 
action counterterrorism missions in Afghanistan, which reflected the 
shared intention of having Afghan security forces in the lead in the 
conduct of such operations with U.S. Forces in a support role.
    Why is it important for Afghan Special Operations Forces to be in 
the lead on night raids?
    Answer. As a sovereign nation, Afghanistan certainly should be in 
the lead in these types of operations. Historically, indigenous forces 
defeat insurgencies. Successful transition will be characterized by our 
Afghan partners taking increasing responsibility for the planning and 
command of these night operations.
    Question. General Allen and others have praised the Village 
Stability Operations (VSO) and Afghan Local Police (ALP) programs--both 
U.S. Special Operations missions--as critical elements of the 
counterinsurgency strategy in Afghanistan. However, President Karzai 
recently stated his position that U.S. Forces should withdraw from 
Afghan villages.
    What are your views on the value of these programs and do you 
believe they should be part of the long-term strategy in Afghanistan 
(i.e. post-2014)?
    Answer. Denying adversaries control over populations is essential 
to prevailing in a contest to establish governance. The VSO and ALP 
programs have proven effective by enabling local security and re-
establishment or re-empowerment of traditional local governance 
mechanisms. ``Bottom-up,'' population-focused stability efforts to 
improve security and development undermine hostile influence and 
control in contested, strategically important areas. These programs 
will prove valuable and effective as part of the long-term strategy in 
Afghanistan.
    Question. What is your understanding of President Karzai's position 
with regard to the VSO and ALP programs?
    Answer. President Karzai desires an Afghanistan that is protected 
and secured by Afghans. His support for the VSO and ALP programs hinges 
on them being Afghan-led, and the traditional ``arbaki'' (local 
militia) aspect of the programs. Support for these programs at the 
local level has heavily influenced his support for them at the national 
level.
    Question. Recently, the Special Operations Joint Task Force-
Afghanistan (SOJTF-A), was established to improve coordination among 
U.S., coalition, and Afghan special forces. This new command structure 
unified, for the first time, command of all capacity building, 
counterinsurgency, and counterterrorism activities conducted by special 
operations forces in the country.
    Do you believe unified command of all special operations activities 
is important and if so, why?
    Answer. Yes. Synchronization and unity of effort among special 
operations activities is absolutely critical and what a unified command 
provides. The recent establishment of NATO Special Operations Component 
Command-Afghanistan, and the Special Operations Joint Task Force-
Afghanistan (NSOCC-A/SOJTF-A) into a combined organizational structure 
provides a robust, properly sized and structured headquarters that 
avoids duplication and ensures the best use of available funding, 
manpower and infrastructure.
    Question. Do you believe general purpose forces could be assigned 
to the new Special Operations Joint Task Force, as has been done 
previously, to augment special operations forces carrying out the 
Village Stability Operations and Afghan Local Police programs?
    Answer. General purpose and Special Operations Forces are task 
organized to produce superior results. It is my experience that when 
different forces work together they achieve outcomes that exceed their 
capabilities when operating alone.
                     afghan public protection force
    Question. What is your opinion of the progress and future prospects 
for the Afghan Public Protection Force (APPF) and its ability to 
transition all ISAF fixed-site and convoy security missions by March 
2013?
    Answer. National Training Mission-Afghanistan (NTM-A) assesses that 
APPF cannot achieve complete transition before September 2014 even 
though Presidential Decree (PD) 62 requires that all ISAF sites and 
convoys currently secured by Private Security Companies (PSC) be 
transitioned to APPF by 20 March 2013. According to PD62, if policy 
does not change it will be illegal to contract services of PSCs after 
20 March 2013. ISAF does not currently have the process or manpower in 
place to undertake this task and the APPF lacks the capacity to replace 
all PSC-provided functions at ISAF locations. ISAF is finalizing a 
contingency plan relating to APPF.
                     no contracting with the enemy
    Question. A year ago, at the request of the Department of Defense 
(DOD), we enacted the ``No Contracting with the Enemy Act,'' which 
gives CENTCOM important new tools to ensure that DOD funds do not go to 
support individuals and entities that actively support the insurgency 
or actively oppose U.S. or coalition forces in Afghanistan. Earlier 
this month, DOD officials informed us that little action has been taken 
pursuant to these new authorities.
    What is your understanding of the reasons for CENTCOM's failure, to 
date, to make aggressive use of the No Contracting with the Enemy Act?
    Answer. Based on my experience in Iraq, I understand the importance 
of preventing funds from getting into the hands of the enemy. If 
confirmed, I will certainly work to ensure that CENTCOM is in 
compliance with the ``No Contracting with the Enemy Act'' provisions.
    Question. What steps, if any, will you take if confirmed to ensure 
that CENTCOM takes full advantage of the authority provided by Congress 
to ensure that DOD funds do not go to support individuals and entities 
that oppose our interests in Afghanistan?
    Answer. If confirmed, I will rely on my commanders in Afghanistan 
and intelligence sources to identify companies or persons that may be 
subject to the ``No Contracting with the Enemy Act''. When presented 
with evidence of support to the enemy or opposition to the United 
States or coalition, I will issue findings against those companies or 
persons in accordance with the authorities granted to me by Congress.
                         afghanistan air force
    Question. How do you believe the delays and disruptions in programs 
to buy airlift and light tactical aircraft for Afghanistan's air force 
have affected Afghanistan's ability to accept responsibility for its 
own security?
    Answer. To date, there have been no known short-term impacts. 
However, as the transition continues, the ANSF will experience more 
equipment and personnel challenges without planned aircraft enablers. 
ANSF will be required to rely more on indirect fires and mobile land 
forces with reduced close air support.
               u.s. strategic relationship with pakistan
    Question. What is your assessment of the strategic relationship 
between the United States and Pakistan? What would you consider to be 
areas of shared strategic interest between the two countries?
    Answer. The strategic relationship between the United States and 
Pakistan remains strained, but is improving. Pakistan's willingness to 
cooperate on key U.S. goals has been limited primarily to issues such 
as counterterrorism and Afghanistan. As such, we have reduced the scope 
of our security assistance to focus on those areas where our strategic 
interests overlap, namely counterterrorism and counterinsurgency 
capabilities.
    Question. What do you consider to be the major challenges in the 
U.S.-Pakistan strategic relationship?
    Answer. Challenges do exist in the U.S.-Pakistan relationship. 
Among them, Pakistan's at-times divergent interests in Afghanistan, its 
existential fear of India and its nuclear arsenal remain roadblocks to 
establishing a long-term, strategic partnership. That said, Pakistan 
is, and will remain important to achieving U.S. goals in the region, 
especially as we transition in Afghanistan. The reality is that most 
challenges can be managed by exercising strategic patience and taking 
the long view on the relationship.
    Question. If confirmed, what changes, if any, would you recommend 
for U.S. relations with Pakistan, particularly in terms of military-to-
military relations?
    Answer. The overall military-to-military relationship continues to 
improve and I believe we should seek to continue this trend. The 
continued importance of the Pakistan military lends credence to the 
continued provision of security assistance as an important engagement 
tool for maintaining access and influence. We must continue our 
``whole-of-government'' approach towards Pakistan to ensure all avenues 
of engagement remain open.
                  u.s. security assistance to pakistan
    Question. Since 2001, the United States has provided significant 
security assistance to Pakistan. In addition, the United States has 
provided significant funds to reimburse Pakistan for the costs 
associated with military operations conducted by Pakistan along the 
Afghanistan-Pakistan border and other support provided in connection 
with Operation Enduring Freedom.
    In your view, how effective has the assistance and other support 
that the United States has provided to Pakistan been in promoting U.S. 
interests?
    Answer. Overall, U.S. support to Pakistan has been moderately 
effective in promoting U.S. interests. At best, our assistance has 
enabled the Pakistani military to increase its effectiveness against 
violent extremists. It has also enabled us to sustain military-to-
military relations. However, the high level of financial support has 
not fully translated to the desired effects the United States 
anticipated.
    Question. Do you support conditioning U.S. assistance and other 
support to Pakistan on Pakistan's continued cooperation in areas of 
mutual security interest?
    Answer. Putting specific conditions on U.S. assistance helps to 
ensure that our support to Pakistan furthers U.S. interests. Without 
such caveats, Pakistan may be tempted to apply our support towards 
efforts they deem to be in their national interest, which may or may 
not overlap with ours.
                          combating terrorism
    Question. What is your assessment of the threat posed by al Qaeda 
(AQ) and its associated forces to the U.S. Homeland, U.S. interests 
overseas, and Western interests more broadly?
    Answer. Despite the immense pressure placed on al Qaeda leadership 
in Pakistan, Afghanistan, Iraq and the Arabian Peninsula, the global al 
Qaeda movement remains resilient. Regional instability in CENTCOM's AOR 
and evolving security conditions resulting from the Arab Spring are 
creating opportunities and potential safe havens for the AQ movement. 
AQ, its affiliates and allies are exploiting weak governments in places 
like Yemen to gain new footholds, plan attacks against U.S. Forces, our 
interests, those of our Western partners and potentially the U.S. 
Homeland. AQ's affiliates and allies pose an enduring and persistent 
threat to the U.S. Homeland and Middle East stability and security.
    Question. Within the CENTCOM AOR, what do you consider the highest 
counterterrorism priorities?
    Answer. I believe the counterterrorism priorities are Pakistan, 
Afghanistan, Yemen, Iraq, and, in the near-term, Syria. Despite our 
efforts, the AQ movement remains resilient due to the rapidly changing 
and emerging geopolitical environment in the Middle East and North 
Africa. AQ senior leadership in Pakistan will likely retain their safe 
haven and continue to provide leadership and moral authority to AQ 
affiliates as U.S. and coalition forces withdraw. AQ in the Arabian 
Peninsula is emerging as the most dangerous of the AQ affiliates and 
persists as the Yemeni Government tries to dislodge the group from its 
southern Yemen safe haven. AQ in Iraq is reconstituting, increasing 
attacks meant to destabilize the Iraqi Government and incite sectarian 
conflict. Finally, AQ in Iraq's Syria-based offshoot, the Al-Nusrah 
Front, is increasing in capability and influence.
    Question. What is your understanding of the Department's role in 
the U.S. strategy to combat terrorism in the CENTCOM AOR?
    Answer. The Department's role in the U.S. strategy to combat 
terrorism in the CENTCOM AOR is to disrupt, dismantle, and defeat al 
Qaeda and any Violent Extremist Organization (VEO) that poses a direct 
threat to U.S. assets, allies, and interests abroad. The Department 
must be part of a ``whole-of-government'' approach to combating long-
term terrorism threats. Combined with diplomatic and economic 
mechanisms against state-enablers of terrorism, DOD can provide 
intelligence collection, training, support, and targeting to support 
counterterrorism efforts.
    Question. Given your current knowledge of CENTCOM programs, do you 
believe the Command's resources are aligned in a manner consistent with 
these counterterrorism priorities?
    Answer. Yes. CENTCOM resources are utilized to employ a whole-of-
government approach to reach many of its desired end states mentioned 
above. Partnerships with U.S. Government entities such as the State 
Department, the Federal Bureau of Investigation, the Drug Enforcement 
Agency, the U.S. Agency for International Development, and the like are 
paramount in the efficient utilization of resources.
                          iraq lessons learned
    Question. Did you agree with the President's decision on the 
withdrawal of U.S. military forces from Iraq? If so, why? If not, why 
not?
    Answer. Yes. Given the unwillingness of the Iraqi Government to 
grant protections and immunities to our servicemembers, thereby putting 
them at risk from prosecution in Iraqi courts, the United States had 
very few options. Our mission in Iraq today, which operates as part of 
the diplomatic mission, has been very successful at sustaining the 
crucial military-to-military relationship with the Iraqi Armed Forces.
    Question. What do you believe are the major lessons learned from 
the Iraq invasion and the follow-on efforts to stabilize the country 
through 2011?
    Answer. I believe the most significant lesson learned was that the 
U.S. military is as capable and resilient--people, equipment, systems, 
and leadership--as at any time in our history, and it reaches its full 
potential when integrated and synchronized across a joint framework 
that has unity of purpose and effect. The second lesson I took away 
from our Nation's commitment in Iraq was the need for a thorough, 
interagency, multi-national approach to planning and execution that 
delivers flexible military plans and operations that can be adjusted to 
account for the ever-changing conditions of warfare. The third lesson I 
took away from Iraq in December 2011 was that the military instrument 
of power has limitations and is best used as part of a whole-of-
government(s) approach to the complex challenges we see today across 
the globe. Finally, I re-learned the value of close, personal 
relationships between coalition, host nation, interagency and other 
partners as teams of teams work to make progress in support of national 
goals.
    Question. What is your understanding and assessment, if any, of the 
Department's adaptations or changes in policy, programs, force 
structure, or operational concepts based upon these lessons learned?
    Answer. It is my understanding that the Department has applied 
several lessons learned, specifically to the approaching transition in 
Afghanistan. In my current position, I can see our approach to 
challenges is informed by experiences in Iraq. I am not in a position 
to assess the changes at the Department level, but there is a clear 
intent to use not only experiences in Iraq, but also experiences in 
combating terror and military engagements/operations over the past 
decade to inform policy, program, force structure, and operational 
concept decisions in the current and future environment.
    Question. If confirmed, what additional changes, if any, would you 
propose making to policy, programs, force structure or operating 
concepts based on the lessons of combat and stability operations in 
Iraq?
    Answer. Our relationship with the Iraqi security forces is 
incredibly important and robust. If confirmed, I will continue our 
efforts to improve the capability of Iraqi security forces while 
transitioning to a normal security relationship. Our goal has been and 
will continue to be a self-sufficient Iraqi military that provides for 
the defense of Iraq. Maintaining an appropriate sized Office of 
Security Cooperation in Iraq (OSC-I) with the required authorities is 
critical to this effort. Iraq's nascent government teeters between 
democracy and oligarchy. Although this problem cannot be solved solely 
through military means, OSC-I's success in maintaining strong military-
to-military relations will afford other U.S. Government agencies the 
time and space needed to achieve U.S. objectives.
                       security situation in iraq
    Question. What is your assessment of the current security situation 
in Iraq?
    Answer. The tenuous security situation in Iraq reflects an immature 
government and security institutions, ethno-sectarian divisions and 
daunting external challenges. Following an unsuccessful effort by 
opposition political parties to unseat Prime Minister Maliki through a 
no confidence vote, Sunni opposition to perceived central government 
sectarianism and authoritarianism has intensified; and Kurdistan 
Regional Government and Government of Iraq security forces remain in a 
tense stand-off in the disputed areas around Kirkuk. Additionally, 
although well below 2006 levels, Iraq has been unable to break the 
cycle of extremist violence that has plagued the country since the 
withdrawal of U.S. Forces. Specifically, al Qaeda in Iraq has proven 
its resilience by maintaining a consistent tempo of high profile 
attacks against primarily government targets over the past year.
    Question. What are the main challenges to stability and security in 
Iraq over the coming months?
    Answer. The main challenges to stability include heightened Arab-
Kurd tensions, unresolved sectarian tensions, extremist violence 
intended to undermine the government, and the potential for spillover 
from the Syrian conflict. The threat of an Arab-Kurd conflict has 
increased steadily in the past year as virtually every aspect of the 
Arab-Kurd relationship has worsened. Lagging political progress 
resulting from a lack of political reconciliation has resulted in 
increasing Sunni political opposition to the Shia-dominated government 
and made a return to sectarian violence possible. Al Qaeda in Iraq has 
continued its cycle of violence and appears to be well postured to 
sustain current levels of violence into the future. The Syrian conflict 
has the potential to exacerbate many of the existing tensions already 
present in Iraq: galvanize the Sunni opposition, strengthen AQI, flood 
the country with refugees, and make weapons available to extremists, 
all stressing the nascent Iraqi Government.
                    u.s.-iraq strategic relationship
    Question. The withdrawal of U.S. Forces from Iraq at the end of 
2011 has been described as the beginning of a new chapter in the 
strategic relationship between the United States and Iraq. The U.S.-
Iraq Strategic Framework Agreement sets out a foundation for a 
normalized U.S.-Iraqi relationship in areas of mutual economic, 
diplomatic, cultural and security interests. Secretary of Defense 
Panetta and the Iraqi Minister of Defense recently signed a MOU for 
Defense Cooperation between the Ministry of Defense of the Republic of 
Iraq and the Department of Defense of the United States.
    How do you see the U.S.-Iraq strategic relationship developing in 
the coming years and in what areas do you see potential for developing 
that relationship?
    Answer. The domestic and regional political challenges facing Iraqi 
leaders are not likely to subside and could complicate our overarching 
strategic relationship. However, we have been quite successful over the 
past year in sustaining our military-to-military relationship with the 
Iraqi Security Forces. I believe this could serve as a launching point 
to further expand our economic, cultural and diplomatic relationships 
under the Strategic Framework Agreement.
    Question. What do you see as the greatest challenges for the United 
States-Iraqi security relationship over the coming years?
    Answer. Domestic challenges, including ethnic and sectarian 
tensions and a lack of inclusiveness in the political system, if not 
effectively addressed, will complicate our security relationship. 
Meanwhile, we may have differing views from our Iraqi partners on 
regional conflicts, such as that in Syria, which may limit Iraq's 
willingness to partner with us.
    Question. What is your understanding and assessment of the recently 
concluded MOU? In your view, how does this agreement on defense 
cooperation promote U.S. security interests with respect to Iraq and 
the region?
    Answer. In my current position I am unable to provide an informed 
assessment of the recently concluded MOU. I understand the MOU is an 
official commitment between the U.S. Government and the Government of 
Iraq for a long-term security relationship. If confirmed, I will work 
with leaders in both nations to sustain, establish, and develop 
programs that pursue our shared goals. In the strategic realm, this 
agreement draws Iraq one-step closer to our Nation.
                 office of security cooperation in iraq
    Question. In fiscal year 2012 and fiscal year 2013, Congress 
authorized the Secretary of Defense to support the transition in Iraq 
by providing funds for the activities and operations of the OSC-I. In 
the report to accompany the National Defense Authorization Act for 
Fiscal Year 2013, the conferees expressed their expectation that the 
administration will accelerate the transition of the OSC-I to a 
normalized status comparable to Offices of Security Cooperation in 
other countries in the region, and that funding for OSC-I activities 
and operations will be transitioned out of DOD to other sources, as is 
the case for offices of security cooperation in other countries.
    Do you support the transition of the OSC-I to a normalized office 
of security cooperation comparable to those in other countries in the 
region?
    Answer. Yes. I fully support DOS's transition for Iraq as it was 
intended at the outset of planning. The normalization and transition 
activities of OSC-I are a reflection of the development of our security 
relationship with the Government of Iraq and represent a significant 
milestone towards an enduring strategic partnership.
    Question. If confirmed, will you ensure that the transition of the 
OSC-I to a normalized status, including funding from sources other than 
the DOD, is completed in a deliberate manner?
    Answer. Yes. If confirmed, I will ensure that the OSC-I transition 
is planned and executed in a deliberate manner that meets all policy 
and legal requirements.
    Question. Based on your experience during the drawdown of U.S. 
Forces in Iraq, do you agree that setting a target date is critical for 
ensuring that the transition of the OSC-I to a normalized status occurs 
in a deliberate manner?
    Answer. The conditions and requirements for the drawdown in Iraq 
were bounded by a timeline, which is a different situation than 
transition of a security cooperation mission, but I would say that 
planning for strategic transitions should balance conditions, risks, 
and timelines that are in line with U.S. policy. As time passes, 
leaders will assess changing conditions and risk to mission to ensure 
that timelines are met or extended in a manner that best achieves the 
goals of the transition. In the end, the U.S. and Iraqi goal should be 
a security cooperation organization of the right size and with the 
right amount of resources to effectively pursue a positive, long-term 
strategic relationship. If confirmed, I will work to ensure that 
conditions and risks are clearly stated and options are presented that 
reflect the results of deliberate planning.
    Question. If confirmed, what timeframe would you recommend as an 
appropriate target for transitioning OSC-I to a normalized status?
    Answer. In my current position I am unable to provide an informed 
recommendation for a target date, but I have every confidence in the 
leadership team in Iraq and the planning for the current approach to 
the transition. If confirmed, I would consult with the interagency team 
to ensure that the military components of the transition were properly 
aligned and prepared for transition. I would also provide best military 
advice on the execution of the transition, presenting options that 
ensured our goals were met and our relationship with Iraq strengthened. 
If conditions change, I would also make case-by-case recommendations on 
programs that could be considered for acceleration or delay.
                                 syria
    Question. The civil war in Syria continues and President Assad's 
commitment to continuing his regime's ongoing operations appear 
unwavering despite broad international condemnation. To date, the 
United States has limited its support to opposition forces to non-
lethal assistance to forces on the ground, as well as technical 
assistance to elements of the opposition working to build a cohesive 
political entity.
    In your view, what is the proper role on the U.S. military in this 
conflict?
    Answer. This is a complex problem requiring a regional solution. 
Certainly at this time, based on the complexity and volatility of the 
conflict, a regionally-led diplomatic and political strategy, with the 
United States in support, has the best chance of succeeding and 
enduring. However, we do need to remain vigilant and conduct 
appropriate planning to contain two emerging threats, the loss of 
control by the Syrian regime of its CW stocks and Advanced Conventional 
Weapons and the growing influence of violent extremists like the Al-
Nusrah Front. Both of these emerging threats have the potential to 
spillover from Syria into neighboring countries, all of whom are U.S. 
allies and partners.
    Question. In your view, should the United States provide other 
kinds of support to opposition groups on the ground in Syria, including 
the provision of lethal support?
    Answer. Based on the divergent interests and fractured nature of 
the armed opposition groups in Syria, there would be great risk to 
providing them with lethal aid at this time. The influential role of 
violent extremists like the Al-Nusrah Front within the opposition and 
the close proximity of Iranian surrogates and Lebanese Hizbollah to the 
conflict increase the chance of lethal aid finding its way into the 
hands of malign actors opposed to U.S. interests. The United States is 
best served by looking for opportunities to provide humanitarian aid 
and non-lethal assistance to acceptable elements of the opposition 
while working with regional partners to develop a diplomatic and 
political solution to the conflict.
    Question. In your view, what should be NATO's role with respect to 
Syria (i.e. should NATO consider a military intervention, the creation 
of a no-fly zone, or other military operations to protect civilians and 
support opposition forces)?
    Answer. Any viable and enduring solution to the Syria crisis must 
rely heavily on leadership and participation from our regional 
partners. Having said that, NATO is currently providing Turkey with 
ballistic missile defense to hedge against potential Syrian military 
aggression. Any further role will be determined through consultation 
with Turkey and our other NATO allies.
    Question. In your view, would the removal of the Assad regime be a 
strategic defeat of Iran in the region?
    Answer. The loss of Assad will be a significant blow to Iran's 
prestige and regional influence and will at least temporarily degrade 
its operational reach into the Levant by calling into question its 
longtime logistics hub in Syria. However, consistent with its hedging 
strategy, Iran will seek to develop other avenues for supporting its 
proxies and surrogates throughout the region and possibly even focus 
more attention on countries with large Shia populations like Iraq and 
Lebanon.
    Question. In your view, what role, if any, has the Government of 
Iraq played with regard to supporting the Assad regime or the armed 
Syrian opposition?
    Answer. The Government of Iraq is attempting to remain neutral 
regarding the Syrian crisis and prefers a diplomatic solution to end 
the conflict. Understandably, Iraq is worried about spillover and is 
seeking to bolster the security of its border. Although the Iraqi 
Government is not directly aiding the Assad regime, it may have tacitly 
supported Assad through Iranian over-flights to Syria. Iranian 
aircraft, overflying Iraqi territory, have transported humanitarian aid 
to the Assad regime and it is likely these shipments have included 
lethal aid. Iraqi authorities have conducted some cargo inspections, 
but have not fully addressed U.S. demands to ensure over-flights do not 
carry lethal aid.
                                  iran
    Question. Iran continues to expand its nuclear program and has 
failed to provide full and open access to all aspects of its current 
and historic nuclear program to the International Atomic Energy Agency.
    What is your assessment of the military and political threat posed 
by Iran?
    Answer. Iranian military capabilities are significant as compared 
to its neighbors, and thus enable Iran to pursue a policy focused on 
reducing U.S. regional influence and asserting Iranian dominance in the 
region. The expansion of Iran's military and nuclear program over the 
last decade provides, in part, Tehran the confidence to threaten and 
coerce neighbors; disrupts international trade and commerce; and 
targets U.S. and partner interests in the region. Iran also maintains a 
significant asymmetric capability via its threat network, led primarily 
by the Islamic Revolutionary Guards Corps Quds Force (IRGC-QF) and its 
regional surrogates, and to a lesser degree the Ministry of 
Intelligence and Security. Iran uses this threat network to covertly 
execute its strategic objectives in the region, advance its 
destabilizing agenda to include the provision of financial and lethal 
aid, and could use this network to attack United States' interests and 
our allies.
    Question. What is your assessment of U.S. policy with respect to 
Iran?
    Answer. U.S. policy, aimed at preventing Iran from acquiring a 
nuclear weapon, is appropriate and critical to avoiding a regional arms 
race and preserving stability in the Middle East. The U.S. Government's 
dual track strategy of engagement combined with pressure in the form of 
sanctions and diplomatic and political isolation is the right approach, 
and most likely to provide an enduring solution to the challenge posed 
by Iran's nuclear pursuits. The current strategy has rallied 
international support and significantly degraded Iran's economy, and as 
we sharpen the choice for the regime in Tehran, our parallel efforts of 
building our regional partners' military capabilities and maintaining 
credible deterrence remain critical elements of our broader multi-
vector approach.
    Question. What more do you believe the United States and the 
international community can and should do to dissuade Iran from 
pursuing nuclear weapons?
    Answer. I believe we should continue to employ the dual track 
strategy of engagement and pressure to achieve our goals. Whenever 
possible we should continue to strengthen the international sanctions 
regime so as to increase the pressure on the Iranian Government, while 
continuing to work with our international partners to underscore to 
Iran the costs it will bear for its nuclear non-compliance, as well as 
the deepening isolation it will face on the regional and global stage. 
Meanwhile, as we draw down forces in Afghanistan and as the overall 
size of the U.S. military presence within the Middle East decreases, it 
will become increasingly important that the United States maintain 
appropriate military capability in the region in order to be able to 
respond to a range of contingencies. This capability will also reassure 
our partners as we continue to build partner capacity in response to 
increasing Iranian malign activity. U.S. Government actions vis-a-vis 
Iran are closely knit together so as to achieve a ``whole-of-
government'' approach to this problem set. By combining our efforts 
with the activities of our partners and friends worldwide, we have the 
best chance of achieving the objectives we seek in dissuading Iran from 
the pursuit of a nuclear weapons capability.
    Question. In your view, what are the risks associated with reducing 
U.S. presence in the Middle East with respect to the threat posed by 
Iran?
    Answer. There are significant risks associated with a reduced U.S. 
regional presence. U.S. Forces demonstrate our resolve and our 
commitment to regional security and the free flow of commerce, as well 
as a reflection of our continued efforts to build the capacity of 
regional partners. U.S. Forces provide a deterrent to Iranian overreach 
and their drive for regional hegemony, and ensure we are prepared to 
respond to a range of regional contingencies. However, the United 
States should not carry this burden alone. An appropriately sized force 
contributes to increased burden sharing by training with regional 
partners to enhance their capacity to better defend themselves. 
Nonetheless, we must balance CENTCOM's regional risk assessment with 
DOD and Service requirements to manage the overall readiness of the 
Force and the costs of associated deployments. This places a premium on 
building partner capacity and working by, with and through our regional 
partners to achieve a better balance of shared defense requirements. If 
confirmed, I will assess CENTCOM's force posture, and my staff and I 
will work closely with the Joint Staff to determine the correct U.S. 
presence in the Middle East.
    Question. In your view, what has been the effect of sanctions 
against Iran--how effective have they been and should additional 
unilateral or multilateral sanctions be levied against Iran?
    Answer. Iran's economy has been severely impacted by the 
unprecedented international sanctions that have been imposed, 
especially the sanctions against the Central Bank of Iran (CBI) and the 
EU oil embargo. These sanctions have reduced the availability of hard 
currency and resulted in a sharply depreciated currency and high 
inflation rates. I expect these conditions to be exacerbated by 
additional sanctions that went into effect on 6 February that prevent 
foreign banks from repatriating Iran's oil revenues, effectively 
locking them up overseas. These restrictions will likely cause further 
deterioration of Iran's economy, such as expanding trade deficits, 
reduction in the availability of hard currency, a further depreciated 
Rial and higher inflation.
    Question. In your view, what role should CENTCOM play in countering 
Iran's support of international terrorism throughout its AOR?
    Answer. CENTCOM, in very close coordination with SOCOM, plays a 
pivotal role in deterring Iran's support to terrorist organizations and 
countering Iran's malign influence. The Iranian Threat Network (ITN) is 
a worldwide network whose elements execute direct action, intelligence 
operations, influence building and terrorism against United States' 
interests, as well as partner nations. From the time of its creation, 
in response to the 1979 Iran crisis, CENTCOM has been crucial in 
defending U.S. interests within the Middle East. We will continue to 
work with our regional partners to build capacity to counter 
international terrorism in and outside the AOR. CENTCOM will continue 
to be the U.S. military's lead for defending U.S. interests in the 
region, maintaining the free flow of international commerce and 
protecting regional partners.
                                 egypt
    Question. What is your assessment of the security situation in 
Egypt?
    Answer. In the near-term, large-scale civil unrest related to the 
ongoing political and economic crises presents an immediate threat to 
stability and security in the country. Internal security forces have 
struggled to control the types of large-scale demonstrations seen in 
Egypt in the past 2 years. Additionally, Egypt's security situation is 
impacted by the growth of violent extremist organizations in the Sinai 
Peninsula and increased arms smuggling from Libya and Sudan. The 
situation on the ground is further exacerbated by the government's 
inability to stabilize the political system. The poor security climate 
is hindering Egypt's economic recovery because it discourages foreign 
investment and the return of Egypt's large tourist economy.
    Question. What is your assessment of the U.S.-Egypt security 
relationship?
    Answer. The Egyptian Armed Forces (EAF) has proven to be a reliable 
partner for us as we navigate Egypt's internal transition and seek to 
promote regional stability and security. We have relied on it during 
times of crises and it has been responsive and professional in its 
actions. EAF has announced its intentions and followed through in 
consistent fashion. Egypt indirectly supports U.S. regional objectives 
by allowing unfettered overflight permissions and Suez Canal transit 
courtesies not typically afforded to other nations. Additionally, 
Egypt's strategic importance and regional leadership role make it one 
of the most important partners in CENTCOM's theater of operations. 
Close defensive ties allow for open dialogue to discuss hard issues and 
identify areas for enhanced cooperation.
    Question. What is your assessment of the role Egypt plays with 
respect to regional stability? In your view, should the U.S. Government 
continue to provide defense articles and services, including but not 
limited to the F-16s, purchased by the Egyptian military using U.S. 
Foreign Military Financing funds?
    Answer. By providing equipment and training the United States has 
helped Egypt to maintain a strong and disciplined professional defense 
force which is critical to ensuring Egypt's continued role as a 
regional leader, able to act as a moderating influence and contribute 
actively to the resolution of regional conflicts. For the past 30 
years, the F-16 aircraft has been a key component of the relationship 
between the U.S. military and the Egyptian Armed Forces (EAF). 
Maintaining this relationship and assisting with the 
professionalization and development of the EAF's capabilities to secure 
its borders is an essential element of our efforts to stabilize Egypt 
and the region.
    Question. Egypt has been criticized for its perceived failure to 
act along the Egypt-Gaza border to counter the smuggling threat posed 
by cross-border tunnels. Egypt has also played an important role, 
however, in ensuring peace on the southern border of Israel.
    What is your assessment of Egypt's efforts to counter the flow of 
rocket and other advanced munitions into Gaza?
    Answer. While Egyptian security forces have interdicted weapons 
shipments crossing Egyptian territory, their capabilities are limited 
and their success sporadic. Weapons coming into Egypt primarily from 
Sudan and Libya continue to transit the Sinai into Gaza. Extremists and 
militants are leveraging the lack of security in the Sinai and Egypt's 
inconsistent initiatives to their advantage.
                   al qaeda in the arabian peninsula
    Question. A number of senior U.S. officials have indicated the most 
significant threat to the U.S. Homeland currently emanates from Yemen.
    What is your assessment of the threat posed by al Qaeda in the 
Arabian Peninsula (AQAP) to the United States?
    Answer. Despite suffering severe territorial, personnel, and 
resource losses over the last year, attacking the U.S. Homeland remains 
a pillar of AQAP's overall strategy. As such, a small cadre of 
operatives continues to work tirelessly to develop plots against the 
West. While those operations appear to be stalled in the conceptual 
stages, the group's history and continued access to innovative 
bombmakers and western operatives suggests AQAP is capable of advancing 
an operation with little to no warning, particularly if 
counterterrorism pressure subsides.
    Question. What is your assessment of the current U.S. strategy to 
counter al Qaeda in the Arabian Peninsula?
    Answer. The CENTCOM strategy to counter threats in Yemen is 
outlined in a detailed plan of actions, activities and operations. I am 
not currently in a position to assess this strategy. However, I do 
believe that our overall approach to countering AQAP must involve our 
interagency and regional partners. Only by effectively employing our 
network can we defeat the AQAP network. If confirmed, I will study this 
challenge further and look to pursue a whole-of-government approach.
    Question. What is the appropriate role of the U.S. military in 
countering the threat of al Qaeda in the Arabian Peninsula, and how 
should this role be coordinated with other agencies and departments in 
prosecuting an interagency strategy?
    Answer. CENTCOM, in coordination with U.S. Government agencies and 
the Host Nation, supports and conducts enabling and security operations 
to promote a secure and stable Yemen in order to neutralize threats 
against U.S. interests. CENTCOM supports a whole-of-government approach 
to improving the overall stability of Yemen. The goal is to set the 
conditions for Yemen to become a secure, stable and responsibly 
governed nation capable of providing for its own security and the needs 
of its population. CENTCOM Yemen Country Plan balances actions to 
disrupt and deny AQAP, security assistance activities, and support for 
other U.S. Government agencies' efforts to improve government capacity 
and economic development.
            regional ballistic missile threats and response
    Question. Iran has hundreds of short- and medium-range ballistic 
missiles today that are capable of reaching forward-deployed U.S. 
Forces, allies, and other friendly nations in the CENTCOM AOR. Syria 
also has an inventory of ballistic missiles that pose a threat to the 
region. The Ballistic Missile Defense Review Report of February 2010 
stated that the United States intends to pursue a Phased Adaptive 
Approach to ballistic missile defense against such missile threats in 
various regions, including the Middle East.
    Do you believe that such a phased adaptive approach will provide 
CENTCOM with the missile defense capabilities needed to defend our 
forward deployed forces and our allies and partners in the region?
    Answer. Yes, I believe a phased adaptive approach will provide 
CENTCOM the missile defense capabilities needed. As a framework, this 
approach phased over time and adaptive in terms of tailoring 
capabilities to specific threats, allows for effective mission command 
through continuous analysis and innovative methodologies. Additionally, 
continuing to assist our partners as they receive new Ballistic Missile 
Defense systems and upgrade older systems will remain a high priority. 
It is imperative we work together to increase our ability to defend 
ourselves and counter the threat.
    Question. What role do you see for the Aegis Ballistic Missile 
Defense system with Standard Missile-3 interceptors in U.S. missile 
defense capabilities in the CENTCOM AOR?
    Answer. The role of the Aegis Ballistic Missile Defense (BMD) 
system with SM-3 missile in the AOR is to provide layered, upper and 
lower tier protection, weighted coverage, and defense in depth of key 
force projection assets supporting CENTCOM CONPLANS against SRBM/MRBMs. 
These elements provide the ability to engage ballistic missiles at 
multiple levels (upper and lower tier) and ranges. The Aegis BMD system 
with SM-3, in coordination with Patriot, provides our only capability 
to execute layered defense in the CENTCOM AOR.
    Question. In addition to U.S. missile defense capabilities in the 
CENTCOM AOR, what role do you see for other nations in the AOR to 
contribute to regional missile defense capabilities, such as UAE 
interest in purchasing the Terminal High Altitude Area Defense (THAAD) 
system?
    Answer. CENTCOM, in close coordination with the Department of State 
and the Office of the Secretary of Defense, is working hard to get 
countries in the Gulf to realize the importance of cooperative defense, 
particularly in the area of air and missile defense. To date, partners 
such as UAE, Qatar, and Saudi Arabia have either purchased or are in 
the process of purchasing THAAD systems. The message to them and others 
is simple, no one can stand alone on this issue; cooperation and 
synchronization are critical to the successful defense of the region.
                          central asian states
    Question. The Central Asian states along the NDN have played 
important roles during the past few years in supporting U.S. and 
coalition forces in Afghanistan. These countries could also play a key 
role for the retrograde of U.S. and coalition equipment out of 
Afghanistan over the coming months and years.
    What is your assessment of current U.S. military relationships with 
the Central Asian states, including Uzbekistan, Tajikistan, and 
Kyrgyzstan?
    Answer. The Central Asian States remain key supporting partners for 
our Afghanistan Strategic Partnership. As we transition in Afghanistan, 
securing access to the NDN for logistical resupply and retrograde 
operations is of particular importance as we seek to promote stability 
and assure our partners of our continued commitment to the region. The 
development of the NDN has been a critical area of investment to that 
end and cooperation with our Central Asian partners will gain 
additional importance post-2014.
    Our relationship with Uzbekistan continues to improve in a 
deliberate, balanced way driven by regional security considerations, 
expansion of the NDN and mutual benefit.
    Tajikistan's ability to build and maintain counterterrorism, border 
security, and counter narcotics capabilities is paramount in protecting 
our mutual interests from the threat of violent extremist 
organizations. We continue to use the Kyrgyzstan, Kazakhstan, and 
Tajikistan (KKT) route of the NDN as well as explore options to 
facilitate the transport of goods in the event of a crisis within this 
region.
    The Kyrgyz Republic is a key partner for U.S. efforts in 
Afghanistan. The NDN network routes and the Transit Center at Manas 
remain key factors in successful operations in the region. However, the 
Kyrgyz Government has consistently stated there will be no foreign 
military at Manas after the current lease expires in July 2014.
    Question. What role do you foresee the Central Asian states playing 
in the retrograde of U.S. equipment out of Afghanistan?
    Answer. The Central Asian States remain key supporting partners for 
our Afghanistan Strategic Partnership. As we transition in Afghanistan, 
securing access to the NDN for logistical resupply and retrograde 
operations is of particular importance as we seek to promote stability 
and assure our partners of our continued commitment to the region. The 
supply lines through the Central Asian States provide the United States 
and NATO flexible and redundant retrograde options. CENTCOM will 
retrograde consistent volumes of equipment through the Central Asian 
States in order to maintain these routes as a hedge against 
geopolitical uncertainty that could impact other routes.
    Question. What security challenges do you see in this portion of 
the CENTCOM AOR?
    Answer. There are several violent extremist organizations (VEOs), 
to include al Qaeda and other Afghanistan- or Pakistan-based groups 
such as the Islamic Movement of Uzbekistan that have expressed interest 
or intent to operate from and within Central Asia. The VEOs benefit 
from narcotics, arms trafficking, and smuggling which are pervasive 
threats in the region. These activities threaten legitimate commerce 
and the flow of strategic resources. The proliferation of material for 
weapons of mass destruction, associated delivery systems and the spread 
of technical expertise from and through the Central Asian States is 
another concern. Across the region there is a considerable lack of 
sustainable development; in the absence of economic opportunity, poor 
and disenfranchised communities can serve as hotbeds for the spread of 
violent extremism.
                                 india
    Question. How does the fact that India is in the U.S. Pacific 
Command area of responsibility (AOR) while Pakistan is in the CENTCOM 
AOR affect the United States' ability to treat the region's challenges 
holistically?
    Answer. The Unified Command Plan (UCP) ``seam'' between Pakistan 
and India does not degrade our ability to address the larger region. 
The CENTCOM and PACOM AOR share many of the same challenges, threats 
and opportunities. CENTCOM and PACOM routinely coordinate with each 
other to ensure unity of effort when dealing with the region's 
challenges.
    Question. In your view, how does our military cooperation and 
engagement with India affect our efforts in Pakistan and Afghanistan?
    Answer. Pakistan, naturally, has concerns about any military 
cooperation between the U.S. and India. This affects both our 
relationship with Pakistan and, indirectly, our efforts in Afghanistan. 
However, we make clear to Pakistan that our military cooperation and 
engagement is not a threat to Pakistan and that this is not a zero-sum 
game. We have important relationships and strategic partnerships with 
both countries that are not at the expense of either one.
            counter piracy operations off the horn of africa
    Question. Over the past few years, U.S. Forces have participated in 
a multi-national mission to counter piracy off the coast of Somalia. 
More recently, evidence suggests that the mission has achieved some 
measure of success, although the assigned task force continues its 
counter-piracy efforts.
    What is your assessment of the mission thus far?
    Answer. Attacks continue but with limited pirate successes due to 
changes implemented by the commercial shipping industry and coalition 
naval presence which have placed a financial strain on Somali pirates. 
While we are currently experiencing success, piracy activity remains 
driven by the desire of pirates to gain multimillion-dollar ransoms 
with little risk.
    Question. In your opinion, how long should we continue the current 
mission as constituted and at what point should we consider a change to 
the strategy?
    Answer. While the mission has achieved a measure of success, it 
would be premature to shift our strategy as piracy will exist until it 
becomes cost prohibitive. The lower numbers in pirate success rates is 
also based on the introduction of newer, less experienced pirate groups 
which could change with time. The presence of counter-piracy Task 
Forces not only contributes to security, but facilitates global 
commerce and regional prosperity. Furthermore, Maritime Security 
Operations offers the best opportunity to work with partners to deny 
violent extremists free use of the sea which also contributes to 
overall regional security.
    Question. What do you see as the most appropriate maritime strategy 
in this region of the world, given the threats of weapons trafficking, 
human trafficking, and piracy?
    Answer. The most appropriate strategy is to continue our leadership 
role as expressed in the President's Maritime Security Policy and the 
NSS Counter Piracy Action Plan in conjunction with the international 
community. Specifically, the U.N., NATO, and the EU; and the maritime 
industry in general. The use of proven tactics and procedures within 
DOD and the Coalition, combined with the practice of industry best 
management procedures (such as vessel protection and disruption 
techniques) have reduced the unlawful maritime activity in the Horn of 
Africa. The combination of military operations and industry's response 
has resulted in suppression of these activities. However, in order to 
prevent the re-emergence of this activity, we must continue to work in 
partnership with the international community to suppress and strive 
towards the eradication of this threat to free international maritime 
security.
    Question. Given that Somalia has established a new Federal 
Government, how should U.S. policy toward pirate groups based in Somali 
territory be modified?
    Answer. CENTCOM's efforts, in conjunction with the international 
community, have produced positive results in increasing the maritime 
security in the Somali Basin. We must continue to work as part of a 
cohesive whole-of-government effort, both within the U.S. Government 
and with the appropriate international organizations (such as the U.N., 
NATO, and the EU) and in conjunction with the Somali Government, to 
continue our successes in reducing the maritime security threat 
expressed by the pirate groups, both ashore and at sea.
                                 israel
    Question. While Israel is not part of the CENTCOM AOR, it does play 
a role in the Command's AOR.
    In your assessment, what are the most significant threats facing 
Israel in the CENTCOM AOR?
    Answer. The greatest threat to Israeli security is the prospect of 
a nuclear-armed Iran. Despite sanctions and significant pressure from 
the international community, the Iranian regime continues to take steps 
that could support the development of a nuclear-weapons program. The 
potential of an Iranian nuclear weapon, coupled with Iran's advancement 
of Theater Ballistic Missiles (both accuracy and quantity), presents 
Israel with what they assess to be intolerable threats to their 
security. Hezbollah also represents a significant existential threat to 
Israel. Other significant threats to Israel's security include Iranian 
proxy elements and Palestinian rejectionists such as Hamas and 
Palestinian Islamic Jihad (PIJ). Finally, regional instability provides 
VEOs with opportunities to gain new footholds in areas near Israel. For 
instance, al Qaeda-aligned groups such as the al-Nusrah Front in Syria 
continue to gain strength in key Syrian cities and may target Israel 
when the Assad regime collapses. Similarly, violence and domestic 
concerns plague Egypt, which provides for under-governance in the 
Sinai, allowing greater freedom of action for AQ-inspired groups.
    Question. If confirmed, what do you view to be your role with 
respect to the defense of Israel?
    Answer. EUCOM is the lead military agency charged with defending 
Israel; however, CENTCOM has always worked very closely with EUCOM, 
SOCOM, and the Department of State to ensure there are no seams or gaps 
in our regional plans. As with our other allies in the Middle East, we 
must honor our commitments to Israel to support them during crisis. As 
the Middle East continues to deal with challenges in Egypt, Syria and 
Lebanon it will be critical for CENTCOM, EUCOM and SOCOM to closely 
coordinate our efforts to maintain a stable region and provide 
appropriate support to Israel.
                              arab spring
    Question. The Arab Spring has changed--and will likely continue to 
change--the political dynamics in the Middle East and North Africa. 
These changes require the United States to adjust our military-to-
military and defense civilian relations in this region. Some observers 
argue that the United States should reduce significantly our military-
to-military contact in countries as a result of the ongoing changes and 
others advocate more robust and stepped-up contact with our partners in 
this region.
    In your view, what should be the posture of the U.S. Government on 
military-to-military and defense civilian relations in the region, 
particularly with respect to Egypt and Bahrain?
    Answer. Military-to-military engagements lay the foundation for and 
bolster our broader diplomatic and political relationships in the 
region, to include in Egypt and Bahrain. Much of this work is ongoing, 
but as resources decrease and American forward presence in the region 
declines, military-to-military engagements and working by, with, and 
through our partners will become even more important. This type of 
engagement is often the bedrock of our relationships and affords us the 
trust necessary to dialogue quietly about contentious issues.
           building partner capacity and security assistance
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations, including the global train and equip authority (``section 
1206''), Global Security Contingency Fund (GSCF), and the niche 
authority for Yemen's Ministry of Interior Counterterrorism Unit.
    What is your understanding of the purpose of the section 1206 
global train and equip authority and Global Contingency Security Fund?
    Answer. The purpose of section 1206 authority (Global Train and 
Equip) is to enhance the capacity of foreign nations to conduct 
counterterrorism operations with either their national military forces 
or maritime security forces. Additionally, the authority allows the 
Department to improve partner nations' capabilities to participate in 
or support military and stability operations in which the U.S. Armed 
Forces are a participant.
    The GSCF is similar in some aspects to the section 1206 authority. 
Both seek to improve the capability of a foreign country's national 
military forces to conduct counterterrorism operations or help a 
partner nation participate in or support military operations consistent 
with U.S. foreign policy and national security interests. However, the 
GSCF is not as narrowly defined or restricted as section 1206. GSCF can 
be used for border security, internal defense, justice sector programs 
(including law enforcement and prisons), and stabilization efforts 
within a country where instability challenges the existing capability 
of civilian providers to deliver such assistance. Additionally, more 
organization, such as within a nation's Ministry of Interior, would be 
a potential recipient of GSCF funds; section 1206 restricts funding to 
a country's Ministry of Defense or Maritime Security forces.
    Question. In your view, what should be our strategic objectives in 
building the capacities of partner nations in the CENTCOM AOR?
    Answer. Our strategic objectives in building partner capacities in 
the AOR include partners that are capable of deterring, defending, and 
cooperating against attack; controlling their borders; mitigating 
ungoverned spaces; enhancing stability; and maintaining cooperative, 
interest-based relations with their neighbors; and Regional Partners in 
the AOR that remain accessible and cooperative with the United States.
    Question. The funding pool available for security assistance and 
other military-to-military engagement activities devoted to the CENTCOM 
AOR tends to be allocated to specific countries.
    What is your understanding of the role CENTCOM plays in developing 
U.S. security assistance priorities (e.g., section 1206, Foreign 
Military Financing, International Military Education and Training 
Assistance, Combatant Commander Initiative Fund)?
    Answer. CENTCOM collaborates with the DOS and each Security 
Cooperation Office (SCO) to develop security assistance programming 
priorities which are aligned with the Department's Security Cooperation 
Guidance and supports the Theater Campaign Plan as well as the 
individual Country Plans. These priorities and recommended funding 
levels are submitted to DOD for inclusion in the President's budget 
request each year.
       u.s. contributions to international peacekeeping missions
    Question. In testimony before the House Committee on Foreign 
Affairs on July 29, 2009, the U.S. Ambassador to the United Nations 
(U.N.) stated that the United States ``is willing to consider directly 
contributing more military observers, military staff officers, civilian 
police, and other civilian personnel--including more women I should 
note--to U.N. peacekeeping operations.'' General Dempsey has said the 
United States ``should consider opportunities for U.S. personnel to 
contribute to U.N. peacekeeping missions'' and that ``experience shows 
that even a small number of trained and experienced American 
servicemembers can have a significant, positive effect on U.N. 
operations.''
    In your view, should the United States increase the number of 
personnel it contributes in the form of staff positions and military 
observers to U.N. peacekeeping missions and other international peace 
operations?
    Answer. Overall, I agree with General Dempsey's position; however, 
our first priority remains our significant troop commitments in 
Afghanistan.
    Question. In your view, what are the advantages and disadvantages 
of contributing additional military personnel to U.N. operations in the 
form of staff positions and military observer positions?
    Answer. U.N. peacekeeping operations are a cost-effective 
alternative to unilateral U.S. military action. Such missions support 
U.S. interests around the world, promoting stability and saving 
civilian lives. U.S. military personnel make significant contributions 
to these efforts, particularly in specialized areas such as logistics 
and intelligence. However, the competing requirements of additional 
participation in U.N. peacekeeping operations must be weighed against 
potential costs, to include the increase in the operational tempo of 
the force.
    Question. In your view, would an increase in the number of U.S. 
military personnel assigned to U.N. peacekeeping missions in the 
CENTCOM AOR help you advance the theater campaign plan?
    Answer. While this is not an issue that I am ready to fully assess, 
there are many important factors to balance in making such an 
assessment, including ongoing U.S. military commitments and engagements 
in the AOR and perceptions in the region that would result from an 
increase in U.S. peacekeepers. I would need to study the issue further 
to ensure that while addressing one issue we do not inadvertently 
create additional issues.
       national strategy to combat transnational organized crime
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing. The Director of National 
Intelligence recently described transnational organized crime as ``an 
abiding threat to U.S. economic and national security interests,'' and 
stated that ``rising drug violence and corruption are undermining 
stability and the rule of law in some countries.'' In July 2011, the 
President released his Strategy to Combat Transnational Organized 
Crime: Addressing Converging Threats to National Security. One of the 
priority action areas designated in the strategy is ``enhancing 
Department of Defense support to U.S. law enforcement.''
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The President's plan for combating transnational criminal 
organizations is reflected in the National Security Strategy. As part 
of a whole-of-government approach the DOD can bring to bear unique 
authorities and capabilities to augment those of our law enforcement 
and intelligence communities. Of note is the policy's call for 
increasing intelligence and information sharing as well as building 
international capacity, cooperation and partnerships.
    Question. What is your assessment of the threat to the United 
States posed by transnational organized crime? Would you consider it a 
national security threat?
    Answer. The growing interconnectivity among transnational organized 
crime (TOC), terrorist groups, and insurgencies threatens U.S. national 
security interests. TOC exploits porous borders caused by regional 
unrest, the speed of global trade, and the growing demand for drugs and 
weapons to cooperate with terrorist and insurgent groups. Similarly, 
terrorist and insurgent groups mobilize TOC networks to undermine 
governments/State institutions and engage in illicit activities (i.e., 
narcotics trafficking, money laundering, small arms/light weapons 
sales, and counterfeit goods) to bolster their resources, which 
improves operational capability and effectiveness.
                       mass atrocities prevention
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10.
    What are your views on the role the United States plays in the 
prevention of mass atrocities and genocide?
    Answer. The United States, as a world leader, has resources which 
it can bring to bear to aid in the prevention of mass atrocities and 
genocide. The decision to commit these resources clearly resides with 
the President. As a military commander, I understand my responsibility 
under the Law of Armed Conflict to protect civilians from physical 
violence and to contribute to a secure, stable, and just environment 
for civilians over the long-term.
    Question. What are your views on the adequacy of the Department's 
tools and doctrine for contributing to this role?
    Answer. Although the CJCS has the Department's lead for further 
developing operational principles, the geographic combatant commands 
will incorporate mass atrocity prevention and response as a priority in 
planning, activities, and engagements. By applying our lessons learned 
methodology to previous and future activities we will continue to 
expand and refine our capabilities and capacities to respond as a 
decisive element of a whole-of-government effort.
                         counter threat finance
    Question. DOD and the Intelligence Community (IC) have begun 
investing more resources in identifying and tracking the flow of money 
associated with terrorist networks and illicit trafficking, but the 
opportunities for tracking and degrading illicit financing flows are 
not yet matched by the effort and resources devoted to them. 
Identifying and disrupting key individuals, entities, and facilitation 
routes enabling the flow of money that supports terrorism, production 
of IEDs, narco-trafficking, proliferation, and other significant 
national security threats could have an outsized impact on confronting 
these threats.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. It is appropriate for DOD to play a supporting role in 
countering threat finance activities. DOD does bring unique 
capabilities to the effort of the broader interagency community. DOD 
can provide its intelligence analysis to identify critical network 
vulnerabilities as well as its strategic and operational planning 
expertise.
    Question. Are there opportunities to replicate or improve upon the 
network-disruption efforts of groups like the Joint Improvised 
Explosive Device Defeat Organization or the Afghanistan Threat Finance 
Cell in impacting other facilitation networks?
    Answer. Yes. The Joint Improvised Explosive Device Defeat 
Organization and the Afghanistan Threat Finance Cell multi-national and 
interagency approaches to the counter-IED and threat finance problem 
sets provide an effective framework that I believe may be applied to 
other networked problem sets such as narcotics and weapons trafficking. 
If confirmed, I will actively pursue such multi-nation and interagency 
solutions to the problems that we face in the CENTCOM AOR to the 
maximum extent possible.
    Question. In your view, how should DOD coordinate and interface 
with other key agencies, including the Department of Treasury and the 
Intelligence Community, in conducting counter threat finance 
activities?
    Answer. In keeping with OSD/Joint Staff/SOCOM (CTF DOD lead 
component) policies, DOD should coordinate counter threat finance 
activities with other agencies and departments through the Geographic 
Combatant Command's interagency process. This type of interface will 
ensure the IA receives one set of theater threat finance priorities, 
reduces redundant and conflicting DOD requests to the IA, and increases 
opportunities to disrupt adversary finance networks. Counter threat 
finance intelligence support (e.g., collection requirements, 
production) should be brokered through theater, component, task force 
J2s and directly with DOD's consolidated threat finance intelligence 
initiatives within the Defense Intelligence Agency.
                                lebanon
    Question. Over the past decade, the United States has provided over 
$500 million in security assistance to the Government of Lebanon.
    In your view, what is the appropriate role for CENTCOM in Lebanon?
    Answer. CENTCOM continues to act as a mentor and enabler of the 
Lebanon Armed Forces (LAF). Our relationship enables the U.S. and 
Lebanon to work toward mutually-supporting goals. A reduction of 
CENTCOM involvement in Lebanon would increase the temptation and 
necessity for Lebanon to consider taking aid from countries whose 
interests conflict with U.S interests.
    Question. In your view, what are the U.S. national security 
interests in Lebanon?
    Answer. The primary U.S. security interest in Lebanon is to 
strengthen the Lebanese Armed Forces (LAF) as a counterweight to 
Lebanese Hezbollah (LH) and, in doing so, reduce the malign influence 
of Iran in the region. Instability in Lebanon plays into the interests 
of LH, Syria, and Iran. The multi-confessional nature of the LAF makes 
it a unifying force in Lebanon acting as a stabilizing force to the 
detriment of our adversaries in the region.
    Question. The current government in Lebanon includes Hezbollah, a 
designated foreign terrorist organization under U.S. law.
    Given the involvement of Hezbollah in the Lebanese Government, what 
do you believe to be the appropriate level of engagement with the 
Lebanese Armed Forces?
    Answer. The LAF has proven itself to be independent of Hezbollah 
influence despite Hezbollah's involvement in the Lebanese Government. 
To date, Hezbollah's involvement has had no impact on our relationship 
and current levels of engagement with the LAF. In light of the ongoing 
situation in Syria, our various forms of aid to the LAF are vital to 
maintaining peace internally while guarding against spillover violence 
from across the Syrian border. Our persistent efforts to provide 
military training and material support to the LAF have enabled them to 
be a more effective counter-balance to Lebanese Hezbollah (LH).
                                 china
    Question. Over the past several years, much as been made of China's 
military growth and modernization and of China's influence throughout 
Asia, including the portions of the region that fall within the CENTCOM 
commander's area of responsibility. For example, many observers point 
out that China has developed and maintains a partnership with Iran 
based, at least in part, on economic and defense cooperation, and that 
China's policies toward Iran have hindered international efforts to 
deter Iran from developing a nuclear weapons capability.
    Question. What do you see as the effect of China's economic and 
military growth on the CENTCOM AOR as a whole?
    Answer. China relies heavily on energy resources found in the 
CENTCOM AOR (Middle East and Central Asia) to meet its growing domestic 
demand for energy and achieve its strategic objective of sustained 
economic growth. China seeks to build political and economic 
relationships with countries in the CENTCOM AOR to ensure that Beijing 
maintains access to the region's energy resources, but China plays 
little role in guaranteeing security and stability throughout the 
region. China has historically been a source of arms sales for 
countries seeking to upgrade their arsenals and/or procure cheaper 
alternatives to U.S. weapons.
    Question. How does China's relationship with Iran, in particular, 
affect U.S. security interests in the region?
    Answer. China is Iran's largest purchaser of crude oil. However, 
China reduced its imports of Iranian crude oil in 2012 compared to the 
previous year, in response to U.S. diplomacy. While China voted for 
sanctions on Iran in U.N. Security Council Resolution 1929, it has 
publicly opposed additional national sanctions that have been levied by 
the United States, European Union and others. Iran seeks to use its 
relationship with China to gain influence within the UNSC, seeking 
support from China during resolution votes. Iran will likely continue 
efforts to build on its relationship with China as it depends on 
Beijing to offset the high cost of business transactions due to 
sanctions.
                    dod counternarcotics activities
    Question. DOD serves as the single lead agency for the detection 
and monitoring of aerial and maritime foreign shipments of drugs 
flowing toward the U.S. On an annual basis, DOD's counter-narcotics 
(CN) program expends approximately $1.5 billion to support the 
Department's CN operations, including to build the capacity of U.S. 
Federal, State, and local law enforcement agencies, and certain foreign 
governments, and provide intelligence support on CN-related matters and 
a variety of other unique enabling capabilities.
    In your view, what is the appropriate role of DOD--and by extension 
CENTCOM--in counterdrug efforts?
    Answer. In the CENTCOM AOR, counterdrug authorities provided by 
Congress permit us to support our Federal law enforcement partners in 
their engagement with regional counterdrug security force 
organizations. These activities address many of the U.S. Government's, 
and by extension CENTCOM's, most pressing regional security issues. 
Counterdrug activities are often one of the few avenues for military 
engagement with our regional partners.
    Question. In your view, what should be the role of the United 
States in countering the flow of narcotics to nations other than the 
United States?
    Answer. The United States should always consider partnering with 
governments requesting counterdrug assistance when it supports U.S. 
national interests. Drug trafficking organizations are international by 
nature and the larger the coalition of the willing to address the 
illicit drugs business, the greater the global impact we could achieve. 
Counter-narcotics operations provide opportunities for developing 
military-to-military relationships and building partner capacity.
    Question. Given that the vast majority of illegal drugs transiting 
in the CENTCOM AOR are not destined for the United States, should DOD 
invest resources in countering the flow of illegal drugs to or through 
the CENTCOM AOR?
    Answer. It is shortsighted to view illicit drugs trafficking 
activity through the prism of only what comes into the United States. 
Narcotics play a critical role in underwriting corruption, which poses 
the greatest strategic threat to the ISAF campaign plan. So, while only 
a relatively minor portion of Afghan opiates make their way to the 
U.S., their impact on U.S. Government engagement in the CENTCOM AOR is 
significant. An effective U.S. counterdrug strategy includes attacking 
the illicit drugs trafficking business at every opportunity from source 
to end user. Counter-narcotics operations provide opportunities for 
developing military-to-military relationships and building partner 
capacity.
          strategic communications and information operations
    Question. Over the past decade, DOD has funded an increasing number 
of military information support operations (formerly known as 
psychological operations) and influence programs. The Government 
Accountability Office reports that DOD has ``spent hundreds of millions 
of dollars each year'' to support its information operations outreach 
activities. Many of these programs are in support of operations in 
Afghanistan, but Military Information Support Teams (MISTs) from U.S. 
Special Operations Command also deploy to U.S. embassies in countries 
of particular interest around the globe to bolster the efforts of the 
Department of State and the U.S. Agency for International Development. 
Further, the geographic combatant commands are increasingly moving into 
this operational space.
    What are your views on DOD's military information support 
operations and influence programs?
    Answer. Military information support operations (MISO) is a 
critical investment in deterrence and prevention of conflict when 
synchronized with interagency efforts. Integral to all phases of 
military operations, MISO serves to shape information environments and 
mitigate risk to mission and forces in advance of and during conflict.
    Question. What unique value should such programs contribute in 
distinction from strategic communications and influence activities 
conducted by other government departments and agencies?
    Answer. CENTCOM's Information Operations (IO) capability is unique 
in that it is opponent focused (military targets), tightly integrated 
with special and technical operations programs and inter-connected with 
the communications community both military and interagency. It has the 
flexibility to employ attributable and non-attributable means (within 
scope of policy) to achieve objectives unlike other Public Affairs and 
Defense Support to Public Diplomacy. CENTCOM's IO capability 
specializes in languages unique to the designated area of operations; 
staff and units of execution have hands-on experience understanding key 
opponent influence systems; and our IO is postured to rapidly target 
those opponents when authorized.
     regional alignment and rotational deployments of army brigades
    Question. The Army plans to align general purpose combat brigades 
with regional combatant commands, including CENTCOM, to support theater 
engagement and security force assistance missions and to make those 
forces, and other supporting units, available on a rotational basis for 
deployment to those regions for training and exercises.
    What is your understanding and assessment of the Army's capability 
and capacity to align combat brigades or other units with regional 
combatant commands?
    Answer. As Vice Chief of Staff of the Army, I have been involved in 
the development of the Regional Alignment of Forces concept. I believe 
it is sound and will provide geographic combatant commanders with 
professionally trained and regionally attuned forces and capabilities 
that are both responsive and capable of meeting theater requirements. 
The Army is executing its first ``proof of principle'' of the 
Regionally Aligned Forces concept in fiscal year 2013 by aligning a 
brigade combat team to U.S. African Command (AFRICOM). The Army will 
conduct a subsequent comprehensive assessment of this effort that will 
further drive our understanding of our capability and capacity to 
execute this mission set going forward.
    Question. What are your views, if any, on the use of general 
purpose forces for missions providing security force assistance to 
other nations' militaries?
    Answer. Recent operations in Iraq and Afghanistan have demonstrated 
that general purpose forces are quite capable of executing the security 
force assistance mission set. Moreover, general purpose forces can be a 
key asset as we continue to build the military capacity of our allies. 
As an example, our military has a rich history of cooperative small 
unit training exercises across a range of combatant commands. 
Ultimately, such efforts must be synchronized with the combatant 
commander's Theater Security Cooperation plan.
    Question. In your view, how, if at all, should a unit's regional 
alignment impact the assignment of personnel, selection of unit 
commanders, priority for cultural and language training compared to 
core combat training, and identification and acquisition of special 
equipment?
    Answer. The Army is currently conducting a comprehensive analysis 
of requirements and impacts of the regionally aligned forces concept. 
This analysis will account for factors associated with doctrine, 
organization, training, materiel, leadership and education, personnel, 
and facilities. Further, the 2013 regional alignment of the brigade 
combat team to AFRICOM will inform this analysis. Factors associated 
with the alignment of divisions and corps will also inform this 
analysis. Ultimately, the Army seeks to support combatant commands 
while remaining operationally adaptable to respond to global 
contingencies, as required.
    Question. If confirmed, how would you propose to implement the use 
of regionally aligned forces in support of your theater assistance and 
engagement strategies?
    Answer. Use of regionally aligned forces to support CENTCOM theater 
assistance and strategy will not be fundamentally different than how 
other forces are now used. The significance of using such forces is 
that regional alignment will enhance relationships between planning 
staffs while improving the aligned units' familiarity with areas in 
which they will most likely be employed.
    Question. In your view, how should funding responsibility be 
consolidated or distributed between the Military Departments and the 
combatant commands for training and employment of regionally aligned 
forces?
    Answer. I believe the current construct established under the 
Goldwater-Nichols DOD Reorganization Act of 1996 adequately and 
efficiently defines the roles and responsibilities of the Services and 
defense agencies in supporting the combatant commands. The Services are 
and should continue to be funded to man, train and equip their forces 
in support of combatant command operational mission sets regardless of 
whether those forces are regionally aligned. However, combatant 
commanders should provide funds for training and exercises conducted in 
their AOR.
    Question. In your view, is it feasible and suitable to satisfy 
theater engagement and assistance strategies completely with rotational 
forces? If not, why?
    Answer. CENTCOM has successfully conducted operations, exercises 
and activities since its inception without permanently assigned forces. 
Like other commands, it plans and requests forces through the Global 
Force Management process. I have complete faith that all CENTCOM 
theater engagement and assistance strategies can be met with rotational 
forces, particularly regionally aligned forces.
                             nato alliance
    Question. The North Atlantic Treaty Organization (NATO) alliance 
continues to be central to our coalition operations in Afghanistan and 
elsewhere, even as many NATO members have significantly reduced their 
national defense budgets in response to economic and fiscal pressures.
    Do you agree that U.S. participation in the NATO alliance 
contributes to advancing U.S. security interests?
    Answer. Yes, members of the NATO Alliance share the same concerns 
for national security as we do. Participation in the Alliance furthers 
international security and U.S. security interests.
    Question. What are the greatest opportunities and challenges that 
you foresee for NATO in meeting its strategic objectives over the next 
5 years, particularly with regard to NATO activities in the CENTCOM 
AOR?
    Answer. We are all operating in a challenging fiscal environment, 
and are seeking ways to more efficiently meet our strategic objectives. 
In this austere environment, there may be opportunities to expand 
interoperability and cost sharing through combined training exercises, 
utilizing our well-developed training facilities in Europe.
    Question. In light of the reductions in national defense spending 
by some NATO members, are you concerned that the Alliance will lack 
critical military capabilities? If so, what steps, if any, would you 
recommend be taken to address potential shortfalls in alliance 
capabilities?
    Answer. The impact of reduced spending will be felt throughout the 
alliance. We can work to mitigate the impact by exploring avenues of 
increasing interoperability, and perhaps achieving economies of scale 
through international cooperative research, development and 
acquisition.
    Question. What is your assessment of the effectiveness of nations 
of the Middle East in recent NATO military operations in Libya?
    Answer. Middle East nations have been effective in recent NATO 
operations and served as an integral part of the Coalition. A prime 
example would be the efforts by UAE, Qatar, and Jordan who flew combat 
sorties during Operation Odyssey Dawn in Libya. Continued training and 
exchanges with our partners in the Middle East forges bonds that can 
last generations and give us resources that when needed fulfill 
operational requirements and further strengthen our ties.
    Question. What steps, if any, do you think CENTCOM should take to 
improve the interoperability of military forces from the CENTCOM region 
with the U.S. and other international security actors?
    Answer. CENTCOM remains committed to working with coalition 
partners to improve stability, peace and security for all partnered 
nations in the CENTCOM AOR and neighboring AORs. Engagement is 
certainly less costly than war and ensuring the interoperability of our 
militaries is the requisite investment to achieve that goal. The most 
dramatic effect on interoperability can be achieved through increasing 
International Military Exchange and Training (IMET) funding for 
military career schools and education.
      intelligence, surveillance, and reconnaissance capabilities
    Question. Since September 11, CENTCOM has received the overwhelming 
majority of the ISR support that DOD has been able to generate. The 
demand for more ISR has continued to outstrip the supply, even though 
the Secretary of Defense has taken extraordinary actions to ramp up the 
acquisition of more and more capable and varied ISR systems. Other 
combatant commands and other military missions and operations outside 
of the CENTCOM AOR have gone wanting.
    Do you foresee, and if so to what degree, CENTCOM relinquishing 
existing ISR systems as forces are withdrawn from Afghanistan and as 
demand continues to grow in AFRICOM, PACOM and other AORs?
    Answer. CENTCOM remains actively engaged with ISAF and USFOR-A on 
planning for ISR support through OEF Change of Mission and support to 
the Enduring Force Headquarters post-OEF. We have learned through 
experience that as our footprint shrinks the demand for ISR increases. 
CENTCOM will conduct an OEF Redeployment Conference and an OPLAN 
Development Conference within the next 60 days. Both events will enable 
us to further refine the ISR requirements in support of the drawdown 
and beyond. If confirmed, I will further assess the requirement for ISR 
in the CENTCOM AOR.
                         science and technology
    Question. As with other combatant commands, a science and 
technology (S&T) advisor is assigned to support CENTCOM.
    If confirmed, what would be your priorities for the CENTCOM Science 
and Technology advisor?
    Answer. The Science Advisor acts as principle advisor to the 
commander on matters of science, technology, innovation, and fielding 
of material and non-material solutions for the command's most pressing 
capability gaps. If confirmed, I will charge the Science Advisor with 
the discovery, research, analysis and advocacy of new and emerging 
technologies and techniques which have the potential to provide 
solutions to our validated joint needs. I will require the Science 
Advisor to continue to discover, develop, and advocate for those 
technologies and techniques that will make our warfighters safer, more 
efficient, and more effective in the immediate and near-term. I will 
charge the Science Advisor to engage with partner countries to develop 
mutually required technologies that will also keep coalition forces 
safe, allow them to be more effective through better integration with 
U.S. Forces, and help build stronger partnerships for the future. I 
will also charge the Science Advisor with looking beyond the horizon to 
ensure CENTCOM warriors maintain their battlespace technology 
superiority during potential future conflicts.
                           operational energy
    Question. Several of your predecessors have established and 
published policies regarding operational energy and its important role 
in supporting the mission in Afghanistan. These policies have stressed 
better management of energy use in the battle space to provide a 
strategic and tactical advantage while increasing combat effectiveness 
and operational capability.
    Do you plan to establish and publish similar policies regarding 
operational energy improvements?
    Answer. If confirmed, I will continue to support the CENTCOM 
established policies and procedures regarding operational energy which 
are now in the refinement phase. These policies and procedures include 
a standing policy on Operational Energy which the Command has 
implemented and Service Components and Joint Task Forces have similarly 
adopted. I will also assess the Command's Operational Energy 
initiatives to identify areas where CENTCOM can further enhance combat 
power and ensure good stewardship of our finite energy resources.
    Question. What is your assessment of how better operational energy 
management translates, if at all, into improving combat effectiveness?
    Answer. Better operational energy management translates to fewer 
fuel convoys, thereby freeing convoy security forces to conduct other 
operational missions. Decreased energy consumption and spending also 
creates the potential to reinvest funds towards force protection and 
other needed capabilities which ultimately increase combat 
effectiveness.
    Question. How do you plan to track fuel consumption at forward-
deployed locations in Afghanistan?
    Answer. The Afghan Sub-Area Petroleum Office (A-SAPO), an element 
of USFOR-A Headquarters, receives regular fuel consumption reports from 
sustainment forces providing fuel distribution services in Afghanistan. 
A-SAPO reviews these reports and forwards them to the CENTCOM Joint 
Petroleum Office.
                 centcom and dod global posture review
    Question. According to the 2010 Quadrennial Defense Review Report, 
DOD will conduct a global posture review that assesses U.S. strategic 
relationships and interests to identify where and at what levels the 
forward stationing of military forces supports those relationships and 
interests. The new strategic guidance released by the Secretary of 
Defense in January 2012 stated regarding the Middle East that ``the 
United States will continue to place a premium on U.S. and allied 
military presence in--and support of--partner nations in and around 
this region.''
    What is your assessment of the current and future strategic 
requirement for basing U.S. military personnel and equipment in the 
Middle East?
    Answer. At present, CENTCOM has sufficient access and basing to 
execute current operations and continually looks for ways to improve 
the flexibility and depth in the theater basing network to support 
potential surge operations if required, and mitigate risk caused by 
access denial and loss of access should it occur. The Command has been 
working with the Department on key elements of a posture strategy and 
is incorporating this in the planning process. CENTCOM has been 
revising its posture in theater for some time as we continue efforts to 
reset forces for current and future operational requirements. This 
process will continue as we work towards the successful completion of 
Operation Enduring Freedom.
    Question. Aside from contingency operations, do you believe the 
number of U.S. Forces permanently stationed within CENTCOM is 
sufficient to meet U.S. national security objectives in the region?
    Answer. In my current position I am unable to provide an adequate 
assessment of requirements and requisite forces in the CENTCOM AOR. 
However, if confirmed, I will work with DOD to define the right mix of 
capabilities to meet future steady state mission requirements and to 
provide a rapid response capability in the event of a crisis.
                          centcom headquarters
    Question. Based on the drawdown in Afghanistan and completed 
redeployment out of Iraq, will you conduct a review of the size of the 
CENTCOM headquarters?
    Answer. Yes. CENTCOM headquarters is undergoing a manpower and 
organization review now, assisted by the Army and Air Force Manpower 
Agencies. If confirmed, I will assess the study recommendations and 
shape the headquarters for future operations.
                         treatment of detainees
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the U.S. Government, regardless of 
nationality or physical location shall be subject to cruel, inhuman, or 
degrading treatment or punishment.
    If confirmed, will you take steps to ensure that all relevant DOD 
directives, regulations, policies, practices, and procedures applicable 
to U.S. Forces in Afghanistan fully comply with the requirements of 
section 1403 and with Common Article 3 of the Geneva Conventions?
    Answer. Yes. If confirmed, I will ensure that CENTCOM forces fully 
comply with all relevant provisions of DOD directives, regulations, 
policies, practices, and procedures applicable to U.S. Forces in 
Afghanistan, and that they fully comply with the requirements of 
section 1403 of the Detainee Treatment Act of 2005 and with Common 
Article 3 of the Geneva Conventions.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes. I understand and support the standards for the 
treatment of detainees and will adhere to them, if confirmed. All 
detainees shall be treated humanely, and in accordance with U.S. law, 
the Law of War, and applicable U.S. policy. Humane treatment entails 
the following: no violence, no cruelty, no torture, and no humiliating 
or degrading treatment.
    Question. Do you believe it is consistent with effective 
counterinsurgency operations for U.S. Forces to comply fully with the 
requirements of Common Article 3 of the Geneva Conventions?
    Answer. Yes. I believe all military operations, to include 
counterinsurgency operations, must be conducted in accordance with the 
requirements of Common Article 3 of the Geneva Conventions.
    Question. How would you ensure a climate that not only discourages 
the abuse of detainees, but that encourages the reporting of abuse?
    Answer. If confirmed, I will set forth clear standards and 
expectations and demonstrate my personal commitment to those standards. 
I will ensure that guard forces are thoroughly trained in the humane 
treatment of detainees. Personnel at all levels will be trained on the 
importance of discouraging abuse and empowered to report any signs of 
abuse. Where appropriate, we will conduct routine inspections.
                         traumatic brain injury
    Question. On June 21, 2010, the Deputy Secretary of Defense issued 
a DOD-wide policy on the management of mild traumatic brain injury 
(TBI) in deployed settings.
    What is your assessment of the effect of this policy in 
safeguarding servicemembers from further traumatic brain injury?
    Answer. This has proven to be a very effective policy and I am 
confident it will contribute immensely in our understanding of mild TBI 
and how best to prevent, detect and treat these injuries. The current 
policy is based on the recently published DOD Instruction 6490.11 and 
ensures that all potentially concussive events (mild TBI) are 
identified, evaluated, treated and tracked by both the line leadership 
as well as those in the military medical community. This policy also 
limits the activity of those individuals identified with multiple 
concussions and ensures they receive complete and timely follow-up and 
are protected from the possibility of further brain injuries.
           mental health assessments and treatment in theater
    Question. The Army's Mental Health Advisory Team (MHAT) has made 
seven separate assessments over the past several years detailing the 
immediate effects of combat on mental health conditions of U.S. 
soldiers and marines deployed to Iraq and Afghanistan. The most recent 
study, MHAT VI, found that ``soldiers on their third and fourth 
deployment report lower morale and more mental health problems,'' and 
that stigma continues to prevent some soldiers from seeking mental 
health care. These types of reports lend support to the fact that 
increasing numbers of troops are returning from duty in Afghanistan 
with post-traumatic stress, depression, and other mental health 
problems.
    Do you have any views on how to best address the mental health 
needs of our troops in theater, in terms of both prevention and 
treatment?
    Answer. Ensuring that the behavioral health and counseling services 
are readily available and accessible for our servicemembers remains a 
high priority. Services are emphasizing resiliency training for 
servicemembers with additional screening prior to deployment by 
qualified mental health providers focused on behavioral health (BH) 
disorders and wellness. Individuals, who have specific behavioral 
health conditions that require specific treatments, and have not 
demonstrated adequate resolution of their behavioral health condition 
or symptoms, are not permitted to deploy. For those in theater, the 
availability of Restoration Centers, telebehavioral health (TBH), and 
an easy-to-use crisis line in conjunction with deployed behavioral 
health providers have given servicemembers more options to take 
preventive measures and seek treatment. If confirmed, I will continue 
to emphasize the importance of mental health prevention and treatment 
for our servicemembers.
    Question. Do you believe that mental health resources in theater 
are adequate to handle the needs of our deployed servicemembers?
    Answer. Yes. To my knowledge the Behavioral Health (BH) resources 
available to our servicemembers in theater are adequate to handle the 
needs of our deployed troops. Keeping in mind that as our footprint 
changes our resources will change and we will have to ensure we 
maintain an adequate balance between number of servicemembers and 
mental health care providers.
    Question. If confirmed, would you request additional behavioral 
health resources from the Services, if needed, to meet the needs of 
units deployed to the CENTCOM AOR?
    Answer. Yes. If additional behavioral health resources were deemed 
necessary, I would not hesitate to request such resources from the 
Services to fill any identified gaps.
                           suicide prevention
    Question. The number of suicides in each of the Services continues 
to concern the committee. A number of these military suicides are 
committed in theater.
    What is your assessment of CENTCOM's suicide prevention program?
    Answer. The challenge of suicide represents the most difficult one 
I have faced in my 37-year career in the Army. While I'm not currently 
in a position to assess CENTCOM's suicide prevention program, I know 
from experience that an effective suicide prevention program requires 
involved and engaged leadership at every level. If confirmed, I will 
ensure suicide prevention receives the appropriate command and 
leadership emphasis throughout the CENTCOM organization.
    Question. In your view, are there any unique stressors in the 
CENTCOM AOR that contribute to the number of suicides of servicemembers 
serving in, or who have recently served in, the CENTCOM AOR?
    Answer. Certainly there are stressors in the CENTCOM AOR. These 
include exposure to combat environments, multiple deployments and high 
operational tempo. That said, the challenge of suicide is incredibly 
complex. While some of the stressors experienced in the CENTCOM AOR may 
contribute to acts of suicide or suicidal ideations, generally there is 
no single causal factor. In most cases, a combination of stressors lead 
an individual to take his/her own life or attempt to do so. That said, 
I do recognize that most CENTCOM forces are rotational. They are often 
required to operate in stressful environments away from their loved 
ones. If confirmed, as CENTCOM commander I will be mindful of these 
stressors and associated challenges and I will make sure my subordinate 
commanders are appropriately focused on them as well.
    Question. If confirmed, what resources would you use to help 
prevent suicides in theater and to prepare redeploying servicemembers 
for transition to life back at home?
    Answer. Prevention of suicide in theater and at home is a vital 
priority--the safety of all deploying, deployed, and returning 
servicemembers is always foremost among my priorities.
    Confronting the difficult reality of suicide in the force requires 
regularly exercising a broad complement of health resources within 
fully supportive command culture. This process begins with recognizing 
the importance of taking care of people, which will always remain the 
most important asset in our military. It is imperative that we 
implement programs and separate suicide prevention initiatives that 
comprise a comprehensive approach to suicide prevention throughout the 
life cycle of the training and deployment so that servicemembers can 
receive appropriate counseling, assistance, respite, and support. 
Continuing to educate Leaders at all levels regarding behavioral health 
and its resources, both in theater and out, along with the installation 
of resiliency training will assist with identifying servicemembers who 
may need additional resources while decreasing the stigma associated 
with behavioral health treatment. All resources available to 
servicemembers need to be actively engaged to educate and support our 
servicemembers to ensure a seamless transition during all phases of a 
deployment.
                             sexual assault
    Question. Sexual assaults continue to be a significant issue in the 
military. Victims of sexual assault report that they are victimized 
twice: first by attackers in their own ranks and then by unresponsive 
or inadequate treatment for the victim and failure of the chain of 
command to hold assailants accountable. Secretary Panetta has recently 
announced several new initiatives to address the sexual assault 
problems in the military, including comprehensive assessments of 
initial training of enlisted personnel and officers, creation of 
special victim capabilities, and limiting initial disposition authority 
to Special Court-Martial Convening Authorities in the grade of O-6 or 
higher.
    What is your assessment of the sexual assault prevention and 
response program in CENTCOM?
    Answer. I am not currently in a position to assess CENTCOM's sexual 
assault prevention and response program. However, if confirmed, I will 
make sexual assault prevention a leadership focus throughout the 
command and ensure that the sexual assault prevention and response 
programs in CENTCOM subordinate commands and components are effective 
and vigorously maintained and supported. Training must be high quality 
and engaging. Commanders and leaders must be present and involved in 
training. They must also take an active role in selecting unit sexual 
harassment/assault representatives and victim advocates. It is 
extremely important that the right individuals be selected for these 
key positions.
    Question. What is your view of the adequacy of the training and 
resources available in the CENTCOM AOR for providing appropriate 
support to victims of sexual assault?
    Answer. I am not currently in a position to assess the adequacy of 
the training and resources available in the CENTCOM AOR. However, if 
confirmed, I will make sure that the appropriate support is provided to 
victims of sexual assault, both those in the CENTCOM AOR and in CONUS. 
That said, I believe that sexual assault prevention and response 
training must begin before leaving home station. Forces who have 
conducted training prior to deployment are much better equipped to 
prevent sexual assault in the first place and address reports of sexual 
assault if/when they do arise.
    Question. What is your assessment of the capability in the CENTCOM 
AOR to investigate allegations of sexual assault and to hold assailants 
accountable for their acts?
    Answer. I believe that CID, AFOSI, and NCIS are capable of 
investigating any sexual assault that occurs in the CENTCOM AOR. 
Commanders have the ability to hold servicemembers accountable when 
they have been accused of sexual assault. Commanders can pursue the 
same options while deployed as they would in garrison, up to and 
including a general court-martial, and I will make it a priority to 
ensure they have the resources in theater to do so.
              intelligence support for indirect activities
    Question. Some observers contend that the national intelligence 
agencies focus their assistance to the Defense Department in 
Afghanistan and Iraq on special operators engaged in direct action 
operations. As a consequence, it is alleged, general purpose forces and 
Special Operations Forces engaged in indirect activities, including 
foreign internal defense and population protection, receive less 
intelligence support.
    If confirmed, how would you ensure that general purpose forces and 
Special Operations Forces engaged in indirect activities receive 
adequate intelligence support?
    Answer. If confirmed, I would ensure our forces, regardless of 
whether they are engaged in direct action or indirect activities, 
receive the intelligence support they need to effectively execute and 
accomplish their mission. I will clearly state my Priority Intelligence 
Requirements and allocate Intelligence, Surveillance, and 
Reconnaissance support in accordance with prioritized, theater 
requirements and capabilities.
         special operations forces in support of country teams
    Question. U.S. Special Operations Command deploys personnel to work 
with country teams in a number of priority countries where the United 
States is not engaged in direct action operations, but rather trying to 
stop the spread of violent extremism. Their mission is to support the 
priorities of the Ambassador and the geographic combatant commander's 
theater campaign plan against terrorist networks.
    Please describe the potential value of these special operations 
personnel to CENTCOM and the country teams they are supporting.
    Answer. Our Special Operations Forces (SOF) are the best in the 
world and are a key component in maintaining the U.S. Government's 
access into a host nation, and advancing interoperability with the host 
nation's military. These objectives are aligned with the Ambassador's 
overarching engagement strategy and the activities of the country team. 
They excel when operating in the strategic environment under austere 
conditions, and are particularly adept in keeping a small footprint on 
the ground. These characteristics make them particularly useful and 
valuable in our Theater engagement strategy, and a given when 
responding to crisis in the region.
    Question. If confirmed, what, if anything, do you intend to do to 
make sure the goals of special operations personnel deployed to these 
countries are closely aligned with those of the Ambassadors with whom 
they are working?
    Answer. If confirmed, it would be my responsibility to ensure that 
our operations and activities are aligned and integrated into the 
Ambassador's country specific objectives and our national security 
objectives. I recognize that my relationships with the Chiefs of 
Mission in the region will be critical to achieving necessary unity of 
effort. I will charge my subordinate SOF commanders at all levels to 
keep their lines of communication open with their respective Chiefs of 
Mission.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. Our experiences in Iraq and Afghanistan have taught us that 
to achieve our goals and objectives we must balance all instruments of 
national power. The complexity of the current operating environment 
requires a whole-of-government approach that leverages the individual 
strengths of the Interagency, to include our military and diplomatic 
partners and others. Unity of effort, based on a `team of team' 
concept, is essential. We must identify common goals and objectives 
early on and work together to achieve them.
    Question. How do you believe these efforts can be improved?
    Answer. The nature of warfare today requires unity of effort. As 
such, I believe we should look to expand our collaboration with our 
interagency partners to include all stages of planning and operations. 
We must not wait until we are in the midst of crises. By working 
together on a routine basis, we will effectively align goals and 
objectives, improve communications and enhance the understanding of one 
another's methods and perspectives. This will ultimately enhance 
individual and U.S. Government effectiveness.
    Question. How can the lessons learned in recent years be captured 
in military doctrine and adopted as ``best practices'' for future 
contingency operations?
    Answer. Lessons learned from combatant command, combined/joint 
operations area, and unit/tactical level activities should be 
communicated to the Services for incorporation into professional 
military education, for civilian-military structural recommendations, 
and for inclusion in the next revisions of joint and Service-level 
doctrine.
                      unified command plan changes
    Question. It has been reported that Admiral McRaven, Commander of 
U.S. Special Operations Command (SOCOM), is seeking changes to the 
Unified Command Plan (UCP) and other authorities that he believes would 
allow SOCOM to better support the requirements of the Theater Special 
Operations Commands (TSOCs). Reportedly, such changes would give the 
Commander of SOCOM combatant command authority over the TSOCs--
including responsibilities for resourcing--and provide for more rapid 
deployment of Special Operations Forces to and between geographic 
combatant commands without the requirement for approval by the 
Secretary of Defense in every case. Operational control of deployed 
special operations forces would reportedly remain with the respective 
geographic combatant commander. Some have expressed concern that such 
changes could raise problems related to civilian control of the 
military, infringe upon the traditional authorities of the geographic 
combatant commanders, and make it more difficult for ambassadors and 
geographic combatant commanders to know what military personnel are 
coming into their areas of responsibility and what they are doing while 
they are there.
    Please provide your assessment of whether such UCP changes are 
appropriate and can be made without conflicting with civilian control 
of the military, infringing upon authorities provided to the geographic 
combatant commanders, or raising concerns with the State Department.
    Answer. If confirmed, I will review all recommended changes to the 
UCP. However, it has been my experience that Special Operations Forces 
are most effectively employed when fully integrated with conventional 
forces. This integration ensures better coordination, unity of effort 
and the ability to share critical resources.
    Question. In your view, are there any countries that should be 
added or removed from the CENTCOM AOR as part of the review of the UCP?
    Answer. I believe the current area of responsibility effectively 
and efficiently facilitates accomplishment of the CENTCOM assigned 
missions. If confirmed, I will continuously assess the CENTCOM missions 
and AOR and propose realignment if future conditions warrant.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent bills, authorizes the provision of support (including 
training, funding, and equipment) to regular forces, irregular forces, 
and individuals supporting or facilitating military operations by U.S. 
Special Operations Forces to combat terrorism.
    What is your assessment of this authority?
    Answer. Section 1208 authority provides authority and funds for 
U.S. SOF to train and equip regular and irregular indigenous forces to 
conduct counterterrorism operations. This authority is considered a key 
tool in combating terrorism and is directly responsible for a number of 
highly successful counter-terror operations. Throughout the CENTCOM AOR 
1208 facilitates multiple joint operations between Theater and National 
SOF partnering with host nation forces. These 1208 funded operations 
create capable responsive host nation forces closely partnered with 
U.S. SOF and represent the best opportunity to counterterrorist 
activities that threaten U.S. interests.
                military information support operations
    Question. Al Qaeda and affiliated violent extremist groups work 
hard to appeal to local populations. In several cases throughout the 
CENTCOM AOR, most recently in Yemen, these efforts have allowed violent 
extremists to establish a safe haven, conduct operations, and expand 
their recruiting base. The composition and size of these groups in 
comparison to the U.S. Government permits it to make policy decisions 
very quickly.
    Do you believe CENTCOM and other agencies within the U.S. 
Government are appropriately organized to respond effectively to the 
messaging and influence efforts of al Qaeda and other affiliated 
terrorist groups?
    Answer. Al Qaeda exploitation of the information environment 
continues to mature and is a decisive part of the al Qaeda Senior 
Leader's campaign. While I'm not currently in a position to assess U.S. 
Government MISO capabilities, I recognize that CENTCOM must be able to 
dominate the information environment and ensure we do not unwittingly 
cede the information battle-space to the enemy.
    Question. What steps, if any, do you believe CENTCOM should take to 
counter and delegitimize violent extremist ideologies?
    Answer. CENTCOM plays a significant role in countering and 
delegitimizing violent extremist ideologies by eroding recruitment, 
reach, fundraising and communication capabilities through military 
information support and coordinated interagency operations.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, CENTCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
                         afghanistan transition
    1. Senator McCaskill. General Austin, I am concerned about what 
appears to me to be a lack of civilian planning and a lack of 
coordination for the transition to our post-2014 involvement in 
Afghanistan. The Government Accountability Office recently released a 
report that found that the Department of Defense (DOD) is effectively 
managing on behalf of the Department of State (DOS) 20 assisted 
interagency acquisitions with an estimated value of almost $1 billion 
for basic support goods and services. In these cases, DOD has been 
involved in every aspect of the acquisition cycle, including planning, 
award, management, and oversight. I am concerned that DOS is not 
prepared to manage the contracts it will need in the post-2014 period 
in Afghanistan when the U.S. military largely leaves Afghanistan. What 
do you intend to do, if confirmed, to ensure that there is adequate 
coordination to ensure that DOS is not dependent on DOD to manage 
contracts in Afghanistan after 2014?
    General Austin. Based upon lessons learned from DOD to DOS 
transition in Iraq, U.S. Central Command (CENTCOM) and DOS created the 
Afghanistan Contract Transition Working Group in 2012. This group is 
specifically addressing the transition of contracts from DOD to DOS 
post-2014. They are examining all contracts currently in place to 
assist DOS in determining which services need to continue after 2014 
and to prepare DOS acquisition management personnel to assume control 
of contracting operations in Afghanistan. The group reports its 
progress on contract transition matters to the Afghanistan Executive 
Steering Group, a forum comprised of senior DOD and DOS leaders. If 
confirmed, I will continue to facilitate the efforts of this group.

                      sustainability requirements
    2. Senator McCaskill. General Austin, Congress has been clear that 
greater analysis and assurances are needed to ensure that the 
reconstruction projects the United States is undertaking in Afghanistan 
are not only needed and wanted by the Afghan Government, but 
sustainable by the Afghan Government. Congress made this clear in the 
National Defense Authorization Act (NDAA) for Fiscal Year 2013, which 
stated that funding for reconstruction and development in contingencies 
will not be available for use until a sustainability assessment is 
conducted that accounts for the host country's ability to maintain 
these projects. This applies not only to DOD, but also DOS and the U.S. 
Agency for International Development (USAID).
    Now that these sustainability requirements for infrastructure 
projects are law, it is up to these departments, including DOD, to 
implement the law effectively and aggressively. Should you be confirmed 
as the Commander of CENTCOM, you will play a key role in implementing 
the law as it pertains to projects in Afghanistan. What steps will you 
take to ensure we are funding sustainable projects in Afghanistan?
    General Austin. Prior to funding any infrastructure projects in 
Afghanistan, U.S Forces-Afghanistan (USFOR-A) conducts assessments to 
ensure we are implementing projects the Government of the Islamic 
Republic of Afghanistan (GIRoA) wants, needs and can sustain. 
Sustainment estimates, which include personnel, training and funding 
resources, are continually refined throughout the project selection 
process in consultation with GIRoA. USFOR-A also ensures sustainment 
costs have been budgeted by GIRoA or other international agencies. In 
partnership with the USAID and U.S. Embassy Kabul, USFOR-A continues to 
build GIRoA's capacity to operate and sustain projects which are 
critical to Afghanistan's stability and economic development. If 
confirmed, I will ensure CENTCOM continues to aggressively support this 
oversight process.

                             sexual assault
    3. Senator McCaskill. General Austin and General Rodriguez, it is 
my understanding that the movie ``The Invisible War'' is being used to 
help educate senior leaders in the U.S. Armed Forces about the issue of 
sexual assault in the military. Have you seen the movie?
    General Austin. Yes.

    4. Senator McCaskill. General Austin and General Rodriguez, as a 
leader in the U.S. Army, what have you learned about the issue of 
sexual assault facing servicemembers under your command?
    General Austin. All individuals deserve to be treated with dignity 
and respect, and they should be guaranteed living and working 
environments free of sexual harassment and sexual assault. During my 
tenure as VCSA, I have conducted a number of sensing sessions with 
soldiers of all ranks in order to hear their thoughts and concerns on 
the topic. These sessions have proven to be very informative and 
helpful to me and other senior leaders and commanders.
    We take these issues very seriously and we are actively taking 
steps to reduce the incidence of sexual harassment and sexual assault 
in our ranks. Indeed, commanders are now, and must remain, critical 
players in establishing the right environments, caring for victims and 
holding offenders accountable within the military justice system. A key 
component in victim reporting is a command climate that fosters a bond 
of trust and confidence between Leaders and their subordinates. Culture 
change is on the horizon; the Army has seen the propensity to report by 
our female soldiers increase in recent years. This positive trend 
indicates that our female soldiers do, in fact, trust their chain of 
command.
    We acknowledge that there is more work to be done to continue this 
upward trend and institutionalize our efforts, and our leaders remains 
focused and committed to continuing to contribute to this most critical 
endeavor.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III
                              afghanistan
    5. Senator Manchin. General Austin, I am a strong supporter of 
bringing our troops home from Afghanistan as quickly as possible so we 
can focus on rebuilding America. The President's recent announcements 
to bring home 34,000 American soldiers within the next year and to move 
up the transition to Afghan combat lead by a few months are welcome, 
but I still believe that we need an even more aggressive timeline for 
withdrawal. Over the next 2 years, do you think there will be any 
opportunities for further expediting the timeline for withdrawal of 
U.S. troops from Afghanistan?
    General Austin. We are at a vital juncture in this campaign and the 
pace of the transition and withdrawal must remain consistent with the 
status of mission and conditions on the ground. However, at this time I 
cannot predict if there will be opportunities in the coming days to 
further expedite the withdrawal. If confirmed, I will work closely with 
General Dunford to continuously assess the situation and provide best 
military advice to our civilian leadership.

    6. Senator Manchin. General Austin, our combat mission in 
Afghanistan is transitioning to one of training, advising, and 
assisting the Afghan National Security Forces (ANSF). In light of this 
change, what are the milestones and measures of effectiveness that DOD 
is using to track the readiness of ANSF to stand on their own? I would 
like to see DOD carefully track and report to Congress on progress 
against these milestones because the sooner these targets have been 
reached, the sooner we can withdrawal troops dedicated to the training 
mission.
    General Austin. If confirmed, I will focus on several principal 
strategic level objectives over the next 2 years including: the 
transition of lead security responsibility to the ANSF; ensuring that 
we set the conditions for the 2014 Afghan Presidential elections; and, 
ensuring all necessary actions are taken to successfully achieve the 
full transition of security responsibility to the democratically 
elected Government of Afghanistan. Success in Afghanistan will 
ultimately hinge, in large measure, on the leadership within 
Afghanistan.
    Having said that, keeping a close eye on milestones and measures of 
effectiveness to track the readiness of ANSF has been an evolutionary 
effort over the past several years. We have developed several tools 
used to assess and track ANSF capabilities and their ability to stand 
on their own. For example, NTM-A uses the Commander's Unit Assessment 
Tool to assess the condition of ANSF units in areas that include: 
leadership, operations, intelligence, logistics, equipping, personnel, 
maintenance, communications, training and education, and partnering. 
Capability Milestones are the measures of effectiveness used to track 
the ANSF readiness and performance at the ministerial level. These 
assessments are conducted quarterly and allow for advisors to focus 
efforts with the Afghans to continue improving their readiness and 
performance. I will work closely with General Dunford to provide DOD 
with progress reports against these milestones in support of 
congressional reporting requirements.

    7. Senator Manchin. General Austin, this question is related to 
your current position as Vice Chief of Staff of the Army, and impacts 
your future position as Commander of CENTCOM because, as you aptly 
state in your advance policy questions, you inherently understand ``the 
importance of taking care of people, which will always remain the most 
important asset in our military.''
    It has come to my attention that there are deployed Army battalions 
in Afghanistan that do not have the appropriate family support at home 
station. In September 2012, Secretary McHugh assured me that deployed 
battalions would have Family Readiness Support assistants, but I know 
of at least a few battalions that do not. Before voting for your 
confirmation, I would like to bring this matter to your attention. Will 
you commit that you have reviewed these policies in your current role, 
and that in your future role, you wholly agree that deployed units must 
have the appropriate family support?
    General Austin. I am grateful for the continued support that you 
have shown for our servicemembers and families. I absolutely agree that 
caring for our families is and must remain a top priority. They 
represent a critical part of our Army Team. They've made countless 
sacrifices over the years, and certainly we could not have accomplished 
all that we have over the past decade-plus of conflict without their 
support. I am aware of the issue that has prompted your concern; the 
senior Army leadership is currently addressing this matter directly. 
You have my full assurance that, if confirmed, as CENTCOM Commander I 
will make sure that the families of all of our deployed servicemembers 
receive the full support they merit and deserve.

    8. Senator Manchin. General Austin, what opportunities do you see 
for encouraging other countries, particularly Afghanistan's neighbors, 
to do more to build ANSF capacity?
    General Austin. Presently, Afghanistan's neighbors are not in an 
economic position to provide equipment or technical training to the 
Afghan National Security Forces (ANSF). However, all of Afghanistan's 
neighbors share a common interest in a stable and secure Afghanistan 
with an ANSF capable of preventing Violent Extremist Organization (VEO) 
safe havens and controlling the adverse regional effects of narcotics 
and criminal patronage networks. Initial ANSF capacity is established 
through the efforts of the International Security Assistance Forces 
(ISAF) Coalition and international donors. The future effectiveness of 
ANSF will depend on bilateral military engagement with Afghanistan's 
neighbors. Nowhere will ANSF bilateral engagement be more critical than 
along the remote and rugged border areas with Pakistan in which 
extremists and criminals seek sanctuary and who directly threaten both 
nations.

    9. Senator Manchin. General Austin, are there things the U.S. 
military can do to encourage these partnerships to relieve the burden 
on our forces?
    General Austin. There are a number of things that U.S. Forces have 
done and are continuing to do to facilitate our continued partnerships. 
First, we are providing first-class training to coalition units 
deploying into theater. Second, we are working closely with our 
partners in the region to develop the tactics, techniques and 
procedures that promote multinational interoperability. Third, we 
assist countries in developing their own capabilities through training 
events and foreign military sales. Finally, we are continuing to 
develop military-to-military relationships at the highest level through 
strategic engagements that not only promote trust, but also help key 
leaders to understand our various military and political concerns.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                 withdrawal of troops from afghanistan
    10. Senator Shaheen. General Austin, in your testimony, you stated 
that you felt confident that the ANSF were on track to assume the lead 
in security this spring. In your examination of the ongoing operations, 
are you confident that the withdrawal of 34,000 troops this year will 
allow for adequate force protection of Americans still in theater?
    General Austin. The safety and security of our deployed forces 
remains our foremost priority. The planned withdrawal of 34,000 troops 
will be phased, as it was with the Surge drawdown, to ensure we are 
able to successfully conduct the required mission while providing 
sufficient force protection. Troops will be redeployed incrementally 
and on pace with base closure and retrograde.

    11. Senator Shaheen. General Austin, from your experience with the 
Iraq withdrawal, what do you think that the United States should do 
differently as we prepare to withdraw from Afghanistan?
    General Austin. The Iraq withdrawal experience taught us two 
things: to begin planning earlier and to consider all possibilities, 
including not having a status of forces agreement (SOFA) that provides 
the legal protection for our military forces and civilians to operate 
in a sovereign nation. Redeployment planning and execution is underway 
and leaders have incorporated the critical lessons learned from Iraq 
including the possibility that the United States and Afghanistan may 
fail to agree to a Bilateral Security Agreement.

    12. Senator Shaheen. General Austin, what best practices do you 
think are applicable to this new challenge?
    General Austin. Although the challenges in Afghanistan are 
different in many respects, ISAF is using the lessons learned from the 
Iraq drawdown to help shape their campaign plan. There are a few best 
practices that are critical to success: (1) synchronize retrograde 
operations with operational maneuver to ensure adequate force 
protection and enabler support as the size of our force decreases; (2) 
conduct all planning with DOS and other agencies to ensure all 
interagency missions are synchronized and set up for success through 
the transition process; (3) prepare for the possibility that no status 
of forces agreement will be in place for subsequent protection of U.S. 
troops and contractors; and (4) ensure the training and advising of the 
ANSF remain the focus, as the ANSF takes the lead for security across 
Afghanistan and as we redeploy our forces.
                                 ______
                                 
           Questions Submitted by Senator Richard Blumenthal
                      troop morale in afghanistan
    13. Senator Blumenthal. General Austin, I have heard from several 
Connecticut servicemembers and their family members deployed to 
Afghanistan that when they are not at the base during certain hours, 
they do not receive breakfast. I have also heard from servicemembers 
that the free wireless Internet provided in Internet cafes is 
occasionally too slow for them to communicate with family members back 
home via Skype. I understand that servicemembers must pay up to $100 
per month if they would like high-speed Internet service in their 
living quarters. I have every confidence that you will ensure the 
welfare of all military personnel under your command. If confirmed, how 
would you address the welfare and morale issues of breakfast and 
adequate Internet use for our servicemembers deployed in Afghanistan?
    General Austin. The care of our deployed servicemembers is 
critically important and I consider this to be an operational issue. 
Mission requirements dictate the availability of certain resources and 
as our footprint gets smaller, we may necessarily see gaps in certain 
services due to operational requirements. That said, if confirmed, I 
will ensure that leaders continue to provide proper care and 
recreational opportunities within mission constraints.

                                 jordan
    14. Senator Blumenthal. General Austin, the civil war in Syria is 
causing thousands to flee to the Jordanian Refugee Camp Zaatari where 
there are press reports of Jordanian outsiders entering the area and 
that it is not properly secured. If confirmed, would you consider 
providing specific training and technical assistance to the Jordanian 
military to improve security control at the Zaatari refugee camp, where 
conditions are worsening and the Government of Jordan is bearing the 
brunt of a crisis that requires a regional response?
    General Austin. The U.S. military routinely provides focused and 
effective training as well as technical assistance to the Jordanian 
Armed Forces. The majority of the training and assistance we provide 
increases their capacity and capabilities in order to ensure a secure 
and stable Jordan. With regards to security at the Zaatri refugee camp, 
the Jordanian Armed Forces do not provide any internal or perimeter 
security for the camp. The Government of Jordan relies on their police 
forces and Gendarme to provide security at Zaatri. The Jordanian Armed 
Forces provide security for the refugees at the border and while 
transporting them to Zaatri. Because the security providers at the camp 
are Ministry of Interior personnel, CENTCOM would need special 
authorities to provide any training or technical assistance should they 
ask for it.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                        tactical nuclear weapons
    15. Senator Chambliss. General Austin, several nuclear powers 
reside in the CENTCOM AOR. There is much concern about countries like 
Pakistan who have unstable governments, discontent populations, and a 
nuclear weapons capability. According to the Congressional Research 
Service and the Federation of American Scientists, Pakistan has 
approximately 90 to 110 warheads, recently passing India's inventory of 
80 to 100 weapons. This appears to be a nuclear arms race in South 
Asia. What are your thoughts on tactical nuclear weapons?
    General Austin. The security and accountability of all tactical 
nuclear weapons in that volatile and beleaguered part of the world is 
of utmost importance to the United States, especially given our vital 
national interests located throughout the region. While Pakistan 
represents the only nuclear power in the CENTCOM AOR, we remain 
concerned about the persistent risk of proliferation and certainly the 
potential for an arms race in South Asia. If confirmed, I will also 
work closely with the Commander of PACOM to ensure that nuclear 
tensions between Pakistan and India are properly addressed. Meanwhile, 
our ultimate goal is to help to discourage Pakistan from maintaining 
tactical nuclear weapons given the inherent threat they pose to 
security and stability in the region. Larger nuclear weapons are 
contained on installations with multi-layered security and are more 
difficult to conceal. In contrast, tactical nuclear weapons are far 
easier to transport and conceal and thus more difficult to track.

    16. Senator Chambliss. General Austin, what is your message to 
leaders in Pakistan for future involvement?
    General Austin. We want to convey to them our belief that the 
significant risks associated with maintaining tactical nuclear weapons 
far outweighs any potential benefit. We also want to emphasize the 
grave need to ensure the proper security and accountability of these 
weapons. Ultimately, it is in both our countries' best interest to 
remain engaged at all levels in order to promote Pakistan stability and 
security and accountability of all nuclear weapons.

    17. Senator Chambliss. General Austin, what will be CENTCOM's role 
in engaging with Pakistani military leaders for responsible 
accountability and positioning of tactical nuclear weapons?
    General Austin. The development of tactical nuclear weapons as a 
potential counter to larger conventional forces is certainly an area of 
concern that merits our attention. The United States must continue to 
employ all elements of national power to aid and assist Pakistan in 
improving its overall nuclear security and to prevent the proliferation 
of nuclear material and technology. If confirmed, I will ensure that 
CENTCOM continues to promote U.S./Pakistan military-to-military 
engagements at the highest levels to promote the security and 
accountability of Pakistan's nuclear weapons program.

                   iranian nuclear weapons capability
    18. Senator Chambliss. General Austin, while they state otherwise, 
it appears Iran is actively pursuing a nuclear weapons capability. This 
is something we cannot allow and there must be a red line drawn prior 
to Iran acquiring this capability. What are the key indicators on 
Iran's path to nuclear weapons capability?
    General Austin. Key indicators could include: (1) Tehran ceases all 
cooperation with the International Atomic Energy Agency, which could 
result in the lack of verification of Iran's nuclear-related materials 
and facilities; (2) Uranium enrichment above the 20-percent level is 
detected; this would exceed Iran's current civilian use requirements 
and may have military implications; (3) Accumulation of large 
stockpiles of 20-percent enriched uranium; (4) Confirmation of nuclear 
weapons-related activities, many of which were outlined in the 
International Atomic Energy Agency November 2011 report annex; (5) 
Operation of a plutonium production reactor and establishment of a 
plutonium reprocessing capability; (6) Continued testing and growth of 
Tactical Ballistic Missile capabilities in the Iranian military.

    19. Senator Chambliss. General Austin, what are the red lines and 
what actions should we take?
    General Austin. The President has stated the United States cannot 
and will not allow Iran to develop or acquire nuclear weapons and 
avoiding a regional nuclear arms race is critical to preserving 
stability in the Middle East. Accordingly, CENTCOM is postured to 
provide the President of the United States (POTUS) with a range of 
military options, as required. That said, the best way to accomplish 
this goal is through diplomacy, both unilateral and with our allies and 
United Nation partners, and a tough sanctions regime. In parallel, the 
United States needs to continue to maintain a strong U.S. military 
presence within the Arabian Gulf region and build our regional 
partners' military capabilities to defend themselves and the region in 
the event of a crisis with Iran. If a crisis with Iran does occur, 
CENTCOM is prepared to defend U.S. interests and our partners' 
sovereignty and maintain the free flow of international commerce 
throughout the region.

    20. Senator Chambliss. General Austin, do you support the full 
range of policy options, to include the use of force?
    General Austin. Yes. Our Nation has vital national interests 
throughout the CENTCOM AOR that would be jeopardized by a regionally-
hegemonic and aggressive Iran in possession of a nuclear weapon. 
Therefore, and as POTUS has stated, we will not tolerate a nuclear-
armed Iran and stand ready to employ all instruments of national power 
to ensure Iran does not achieve such a capability. If confirmed, as the 
CENTCOM Commander, I will be prepared at all times to provide POTUS 
with a range of options for effective military actions across the 
spectrum of conflict.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                           iran's activities
    21. Senator Ayotte. General Austin, what are Iran's activities now 
in Syria?
    General Austin. Over the past 2 years, Iran has focused on keeping 
the Assad regime in power to maintain the critical gateway to its 
regional surrogates and proxies. Iran is providing the Syrian regime 
money, weapons, military advisors, technical support, and is becoming 
directly involved in operations against opposition forces. 
Additionally, Iran is increasing support to pro-Assad Shia militants, 
including establishing, training, and equipping the Jaysh al Sha'bi 
militia.

    22. Senator Ayotte. General Austin, what are Iran's activities in 
Lebanon, Yemen, Iraq, and Afghanistan?
    General Austin. The Iranian Threat Network (ITN) is a worldwide 
network consisting of the Islamic Revolutionary Guards Corps-Quds Force 
(IRGC-QF), Ministry of Intelligence and Security (MOIS), and their 
surrogates, business and logistics support. ITN actions, lethal or 
otherwise, are a problem common to nearly every troubled country in the 
region including Lebanon, Yemen, Iraq and Afghanistan.
    Iran continues to exploit regional animosity toward Israel to gain 
influence in the Levant, portraying itself as the sole supporter of 
Palestinian and Lebanese resistance. Iran continues providing Hezballah 
with lethal military support, religious guidance, and funding for 
numerous outreach programs targeting Shia communities throughout 
Lebanon and specifically in southern Beirut. Iranian lethal aid 
includes several advanced weapons systems, such as anti-ship missiles, 
surface-to-surface missiles, unmanned aerial vehicles, several variants 
of manportable air defense systems, anti-tank guided missiles and tens 
of thousands of tactical rockets.
    In Yemen, Iran has taken advantage of unrest since early 2011 to 
grow its influence. They are providing lethal and non-lethal support to 
segments of the Huthi rebel movement in Yemen, in hopes of building the 
group into a Lebanese Hizballah like element it can use to pressure the 
Yemeni Government. Iran is also establishing an Arabian Peninsula based 
weapons hub for training and exporting lethal aid to Yemen.
    Iran is trying to expand its influence in Iraq by strengthening its 
political, economic, and military ties with the Iraqi Government and 
its senior leaders. Influence over Iraqi officials allows Iran to 
extend hard and soft power influence in key areas of Iraq. Iraqi 
airspace has been used to ferry lethal aid to Syria, uninhibited by 
perfunctory Iraqi inspections of aircraft. Tehran is also engaging 
Iraqi political leaders on all sides to ensure the current Iraqi 
political crisis does not devolve into conflict. Iran continues to 
support its Shia militant proxies, even though the groups have assumed 
a lower profile in Iraq over the past year.
    In Afghanistan, Iran through the IRGC-QF, continues equipping and 
training the Taliban and other insurgents to undermine ISAF efforts to 
establish security and stability in Afghanistan. Iran's other 
influential efforts include overt support for the Afghan Government and 
economic and cultural outreach to the Afghan populace, particularly 
Shia minority populations. Politically, Iran seeks to maintain positive 
relations within the highest levels of the Afghan Government while 
attempting to steer Afghanistan away from a long-term Bilateral 
Security Agreement with the United States.

                              arabian gulf
    23. Senator Ayotte. General Austin, are we in a period of 
heightened risk in the Arabian Gulf region?
    General Austin. Yes. Iran's actions in the Arabian Gulf, of late, 
have been more aggressive as Tehran attempts to assert territorial 
claims that exceed internationally recognized limits. As Iran continues 
to actively challenge our presence in international airspace and waters 
of the Gulf, these events create the potential for miscalculation. Iran 
also continues improving the lethality and accuracy of its ballistic 
missiles and conducts military exercises with the stated purpose of 
closing the Strait of Hormuz, threatening not only its neighbors but 
also the global economy. Meanwhile, the International Atomic Energy 
Agency has reported that Iran continues to increase and improve its 
uranium enrichment activities, causing concerns over the potential 
military dimensions of its nuclear program.

    24. Senator Ayotte. General Austin, what are the consequences of 
not having the second aircraft carrier in the Arabian Gulf region?
    General Austin. While the presence of a second aircraft carrier 
significantly enhances the flexibility and number of response options 
available to POTUS in the midst of a crisis, in its absence the United 
States still retains a robust response capability for any number of 
contingencies. That said, the lack of a second carrier would increase 
response times required to execute some military options in the region.

              integrated air and missile defense framework
    25. Senator Ayotte. General Austin, given regional threats and a 
need to balance Iran's nuclear ambitions, will CENTCOM continue to 
pursue a robust integrated air and missile defense framework with our 
Gulf Cooperation Council partners?
    General Austin. Yes. Developing a robust integrated air and missile 
defense framework with our Gulf Cooperation Council partners is central 
to demonstrating the U.S. resolve in the region. Iran possesses 
extensive ballistic missile capabilities that continue to grow in 
quantity and technological sophistication. Their disruptive behavior 
threatens the security interests of our regional partners and the vital 
interests of the United States and we must emphasize interoperability 
with our partners as they procure new and upgrade older missile defense 
systems. Ultimately, a layered U.S. and Gulf Cooperation Council 
missile defense architecture is necessary to effectively counter the 
Iranian tactical ballistic missile threat and preserve operational 
flexibility.

                            sequester risks
    26. Senator Ayotte. General Austin, how will sequestration increase 
risk to our interests in the CENTCOM AOR?
    General Austin. Sequestration will significantly increase the risk 
to readiness and ongoing missions in the CENTCOM AOR as Chairman 
Dempsey and the Service Chiefs have stated. Sequestration will cause 
the Services to delay required maintenance to ships and other major 
systems, curtail pilot training hours, stall procurement decisions, and 
cancel contracts. While such actions may meet short-term sequestration 
goals, they introduce risk and likely result in greater expenditures 
later. The effects of sequestration will negatively impact all of the 
Services, thereby having a significant operational impact on the 
CENTCOM AOR due to its geography, the pace of ongoing combat 
operations, and the likelihood of numerous unforeseen contingencies.

                    surveillance in central command
    27. Senator Ayotte. General Austin, the 2002 $250 million wargame 
Millennium Challenge simulated a naval engagement in the Gulf and found 
that speedboats pose a serious threat to our CENTCOM forces, especially 
in the Strait of Hormuz. Given that, is persistent ISR that can track 
these speedboats still required?
    General Austin. Yes. The threat tactics employed during Millennium 
Challenge still pose a significant threat to our forces. Specifically, 
tactics such as swarming have been practiced and refined by the 
Iranians over the years. Iranian speed boats, which we categorize as 
Fast Attack Craft and Fast In-shore Attack Craft, pose a unique and 
significant threat to U.S. and coalition naval forces, as well as 
commercial shipping in the Arabian Gulf. These craft are integral to 
Iran's mine-laying and swarm tactics and thus pose a significant threat 
to the safety of navigation through the Strait of Hormuz and the 
shipping lanes of the Arabian Gulf. Given the low observable signatures 
and dynamic operations of these threats, persistent ISR is still 
required.

    28. Senator Ayotte. General Austin, given what we know about Iran's 
missile capabilities, would you consider integration of fire control 
and persistent ISR valuable to the protection of our forward deployed 
troops?
    General Austin. Yes. CENTCOM forces and coalition partners will 
have only minimal time to react to missile launches in the Arabian 
Gulf. Rapid identification, verification, geolocation, and kinetic 
targeting of such threats is a must (find-fix-finish).

    29. Senator Ayotte. General Austin, the Army recently announced 
that the Joint Land Attack Cruise Missile Defense Elevated Netted 
Sensor (JLENS) system would be demonstrated in the National Capital 
Region to provide exactly that kind of ISR and defense. Would such a 
system help counter threats such as those posed to U.S. Forces in the 
Gulf?
    General Austin. Persistent ISR systems such as JLENS, specifically 
designed for missile detection and tracking, would help to counter 
threats such as those posed to U.S. Forces in the Gulf. However, JLENS 
is not currently a program of record and is still in testing. If this 
system does become available for worldwide operational use, JLENS will 
offer persistent and multi-sensor capabilities optimized for point area 
defense. The fact that JLENS is tethered will prove a limitation 
requiring substantial planning and de-confliction to overcome the 
impact to air navigation, especially in nations who only grant the 
United States limited use of their airspace.

                international security assistance force
    30. Senator Ayotte. General Austin, if General Dunford told you 
that he believes the pace of the withdrawal is jeopardizing our 
interests and a positive outcome in Afghanistan, would you support his 
request to slow the pace of withdrawal?
    General Austin. I will remain in close contact with General Dunford 
to assess the conditions on the ground, consider his best judgment in 
any major decisions regarding the campaign, including the pace of 
redeployment of our forces, and provide my best military advice to my 
chain of command.

    31. Senator Ayotte. General Austin, if General Dunford says he 
needs more forces than planned after 2014, would you support that 
request?
    General Austin. I will work closely with General Dunford and 
consider his best judgment in any major decisions regarding the 
campaign, including the size of the forces required to meet the 
mission, as directed by the President. I will continue to work with 
General Dunford and his team, the Joint Staff and DOD, to assess 
conditions on the ground and provide my best military advice to my 
chain of command.

    32. Senator Ayotte. General Austin, what will happen in Afghanistan 
if the United States withdraws too quickly or leaves too few troops in 
Afghanistan post-2014?
    General Austin. Campaign success through 2014 and beyond requires 
balancing many factors, including mission requirements, availability of 
resources, and risk to forces. Ultimately, the Afghans are responsible 
for securing their own country, and we have made a significant 
investment in training their forces to achieve this goal. That said, 
while it is hard to predict exactly what would happen if the United 
States were to withdraw too quickly, such a withdrawal could jeopardize 
the hard fought gains achieved over the last 12-plus years. Ultimately, 
withdrawing too quickly could result in increased instability in 
Afghanistan and throughout the region. If confirmed, I will work 
closely with General Dunford to ensure a responsible transition and 
withdrawal of U.S. Forces from Afghanistan.

                                 syria
    33. Senator Ayotte. General Austin, why do you believe that the al 
Nusrah Front is increasing in capability and influence in Syria?
    General Austin. The ``al Qaeda in Iraq'' Syrian front organization, 
al-Nusrah Front, has achieved its current level of capability and 
influence because of two key variables. Al Nusrah has focused on 
outreach to the Syrian populace, tempering its vision of an Islamic 
state and building an outreach program that includes basic humanitarian 
assistance. This has some Syrians looking to al Nusrah as a viable 
alternative to the current Assad regime. This outreach is powerful when 
combined with the second key to al Nusrah's success, the experience its 
forces bring to the fight in Syria. This experience, gained largely in 
Iraq, includes not only tactics and strategies, but also logistics, 
organizational skills, and a discriminating use of violence. Al Nusrah 
Front strives to minimize civilian casualties and applies savvy 
propaganda when unwanted deaths occur, typically shifting the blame to 
regime forces or other Syrian opposition groups.

                       contracting with the enemy
    34. Senator Ayotte. General Austin, are you aware of section 841 of 
the NDAA for Fiscal Year 2012, titled ``Prohibition on Contracting with 
the Enemy in the CENTCOM Theater of Operations''?
    General Austin. Yes, I am aware of section 841 and the authority 
granted to the CENTCOM Commander to issue findings against companies 
and individuals actively supporting the insurgency.

    35. Senator Ayotte. General Austin, if confirmed, do you commit to 
aggressively implementing these authorities to save taxpayer money and 
ensure U.S. contracting funds do not end up in the hands of our 
enemies?
    General Austin. Yes, if confirmed, I will aggressively utilize the 
authority provided under section 841 to issue findings against 
companies and individuals found to be using proceeds from U.S. 
contracts to actively support the insurgency.
                                 ______
                                 
    [The nomination reference of GEN Lloyd J. Austin III, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 23, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    GEN Lloyd J. Austin III, USA, 0000.
                                 ______
                                 
    [The biographical sketch of GEN Lloyd J. Austin III, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
          Biographical Sketch of GEN Lloyd J. Austin III, USA
Source of commissioned service: USMA.

Educational degrees:
    U.S. Military Academy - BS - No Major
    Auburn University - ME - Educational Administration
    Webster University - MA - Management

Military schools attended:
    Infantry Officer Basic and Advanced Courses
    U.S. Army Command and General Staff College
    U.S. Army War College

Promotions:

------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
2LT.......................................  4 Jun 75
1LT.......................................  4 Jun 77
CPT.......................................  18 Nov 79
MAJ.......................................  1 Jun 86
LTC.......................................  1 Jul 92
COL.......................................  1 Aug 97
BG........................................  1 Jan 02
MG........................................  1 Jan 05
LTG.......................................  8 Dec 06
GEN.......................................  1 Sep 10
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Feb 12..........................  Present...........  Vice Chief of
                                                       Staff, U.S. Army,
                                                       Washington, DC
Sep 10..........................  Dec 11............  Commander, U.S.
                                                       Forces-Iraq,
                                                       Operation New
                                                       Dawn, Iraq
Aug 09..........................  Aug 10............  Director, Joint
                                                       Staff,
                                                       Washington, DC
Apr 09..........................  Aug 09............  Commanding
                                                       General, XVIII
                                                       Airborne Corps
                                                       and Fort Bragg,
                                                       Fort Bragg, NC
Feb 08..........................  Apr 09............  Commanding
                                                       General, XVIII
                                                       Airborne Corps/
                                                       Commander, Multi-
                                                       National Corps-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq
Dec 06..........................  Feb 08............  Commanding
                                                       General, XVIII
                                                       Airborne Corps
                                                       and Fort Bragg,
                                                       Fort Bragg, NC
Sep 05..........................  Dec 06............  Chief of Staff,
                                                       U.S. Central
                                                       Command, MacDill
                                                       Air Force Base,
                                                       FL
Sep 03..........................  Aug 05............  Commanding
                                                       General, 10th
                                                       Mountain Division
                                                       (Light) and Fort
                                                       Drum, Fort Drum,
                                                       NY, to include
                                                       duty as
                                                       Commander,
                                                       Combined Joint
                                                       Task Force-180,
                                                       Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Jul 01..........................  Jun 03............  Assistant Division
                                                       Commander
                                                       (Maneuver), 3d
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart, GA,
                                                       and Operation
                                                       Iraqi Freedom,
                                                       Iraq
Jun 99..........................  Jul 01............  Chief, Joint
                                                       Operations
                                                       Division, J-3,
                                                       Joint Staff,
                                                       Washington, DC
Jun 97..........................  Jun 99............  Commander, 3d
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Aug 96..........................  Jun 97............  Student, U.S. Army
                                                       War College,
                                                       Carlisle
                                                       Barracks, PA
Mar 95..........................  Jun 96............  G-3 (Operations),
                                                       82d Airborne
                                                       Division, Fort
                                                       Bragg, NC
May 93..........................  Mar 95............  Commander, 2d
                                                       Battalion, 505th
                                                       Parachute
                                                       Infantry
                                                       Regiment, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC, and
                                                       Operation Safe
                                                       Haven, Panama
Oct 92..........................  Apr 93............  Director,
                                                       Directorate of
                                                       Plans, Training,
                                                       Mobilization, and
                                                       Security, U.S.
                                                       Army Garrison,
                                                       Fort Drum, NY
Jun 91..........................  Oct 92............  Executive Officer,
                                                       1st Infantry
                                                       Brigade, 10th
                                                       Mountain Division
                                                       (Light), Fort
                                                       Drum, NY
Jun 89..........................  May 91............  S-3 (Operations),
                                                       later Executive
                                                       Officer, 2d
                                                       Battalion, 22d
                                                       Infantry, 10th
                                                       Mountain Division
                                                       (Light), Fort
                                                       Drum, NY
Jul 88..........................  Jun 89............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
Dec 85..........................  Jun 88............  Cadet Counselor,
                                                       later Company
                                                       Tactical Officer,
                                                       U.S. Military
                                                       Academy, West
                                                       Point, NY
Jan 85..........................  Dec 85............  Student, Auburn
                                                       University,
                                                       Auburn, AL
Oct 82..........................  Dec 84............  Company Commander,
                                                       U.S. Army
                                                       Recruiting
                                                       Battalion,
                                                       Indianapolis, IN
Oct 81..........................  Oct 82............  Operations
                                                       Officer, U.S.
                                                       Army Indianapolis
                                                       District
                                                       Recruiting
                                                       Command,
                                                       Indianapolis, IN
Apr 81..........................  Oct 81............  Assistant S-3
                                                       (Operations), 1st
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Oct 79..........................  Apr 81............  Commander, Combat
                                                       Support Company,
                                                       2d Battalion
                                                       (Airborne), 508th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Mar 79..........................  Sep 79............  Student, Infantry
                                                       Officer Advanced
                                                       Course, U.S. Army
                                                       Infantry School,
                                                       Fort Benning, GA
Jan 78..........................  Feb 79............  Scout Platoon
                                                       Leader, Combat
                                                       Support Company,
                                                       1st Battalion,
                                                       7th Infantry, 3d
                                                       Infantry Division
                                                       (Mechanized),
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
May 76..........................  Jan 78............  Rifle Platoon
                                                       Leader, A
                                                       Company, 1st
                                                       Battalion, 7th
                                                       Infantry, 3d
                                                       Infantry Division
                                                       (Mechanized),
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Commander, U.S. Forces-Iraq,      Sep. 10-Dec. 11...  General
 Operation New Dawn, Iraq.
Director, Joint Staff,            Aug. 09-Aug. 10...  Lieutenant General
 Washington, DC.
Commanding General, XVIII         Feb. 08-Apr. 09...  Lieutenant General
 Airborne Corps/Commander, Multi-
 National Corps-Iraq, Operation
 Iraqi Freedom, Iraq.
Chief of Staff, U.S. Central      Sep. 05-Dec. 06...  Major General
 Command, MacDill Air Force
 Base, FL.
Commanding General, 10th          Sep. 03-Apr. 04...  Brigadier General/
 Mountain Division (Light) with                        Major General
 duty as Commander, Combined
 Joint Task Force-180, Operation
 Enduring Freedom, Afghanistan
 (No Joint Credit).
Chief, Joint Operations           June 99-July 01...  Colonel
 Division, J-3, Joint Staff,
 Washington, DC.
------------------------------------------------------------------------


Summary of operational assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Commander, U.S. Forces-Iraq,      Sep. 10-Dec. 11...  General
 Operation New Dawn, Iraq.
Commanding General, XVIII         Feb. 08-Apr. 09...  Lieutenant General
 Airborne Corps/Commander, Multi-
 National Corps-Iraq, Operation
 Iraqi Freedom, Iraq.
Commanding General, 10th          Sep. 03-Apr. 04...  Brigadier General/
 Mountain Division (Light) with                        Major General
 duty as Commander, Combined
 Joint Task Force-180, Operation
 Enduring Freedom, Afghanistan
 (No Joint Credit).
Assistant Division Commander      Mar. 03-Apr. 03...  Brigadier General
 (Maneuver), 3d Infantry
 Division (Mechanized),
 Operation Iraqi Freedom, Iraq.
Commander, 2d Battalion, 505th    Nov. 94-Feb. 95...  Lieutenant Colonel
 Parachute Infantry Regiment,
 82d Airborne Division,
 Operation Safe Haven, Panama.
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal (with three Oak Leaf Clusters)
    Distinguished Service Medal (with Oak Leaf Cluster)
    Silver Star
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with Oak Leaf Cluster)
    Defense Meritorious Service Medal
    Meritorious Service Medal (with four Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal (with seven Oak Leaf Clusters)
    Army Achievement Medal (with Oak Leaf Cluster)
    Combat Action Badge
    Expert Infantryman Badge
    Master Parachutist Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN Lloyd J. 
Austin III, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Lloyd J. Austin III.

    2. Position to which nominated:
    Commander, U.S. Central Command, MacDill Air Force Base, FL.

    3. Date of nomination:
    January 23, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 8, 1953; Mobile, AL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Charlene Denise Banner Austin; Maiden Name: Banner.

    7. Names and ages of children:
    Reginald Hill (Stepson); age 44.
    Christopher Hill (Stepson); age 40.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the U.S. Army.
    National Infantry Association.
    Rocks Incorporated.
    555th Parachute Infantry Regiment Association.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Patriot Award: October 2009 (Awarded for exceptional service to 
country by the Patriot Foundation, Pinehurst, NC).
    Lifetime Achievement Award (Awarded by Auburn University).
    Pinnacle Award (Awarded by the Chamber of Commerce in Thomasville, 
GA).
    Honorary Doctorate (Awarded by Fayetteville State University).
    Lincoln Award (Philadelphia, PA).

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Lloyd J. Austin III.
    This 2nd day of December, 2013.

    [The nomination of GEN Lloyd J. Austin III, USA, was 
reported to the Senate by Chairman Levin on February 26, 2013, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on March 5, 2013.]
                              ----------                              

    [Prepared questions submitted to GEN David M. Rodriguez, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also improved cooperation between the Services and the 
combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. At this time I do not believe modifications are 
necessary. If confirmed, I will continue to be alert to the need for 
modifications.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.
    Question. Do you believe that the role of the combatant commanders 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. Yes.
    Question. Do you see a need for any change in those roles, with 
regard to the resource allocation process or otherwise?
    Answer. No.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander of U.S. Africa Command (AFRICOM)?
    Answer. The Unified Command Plan specifies the responsibilities of 
AFRICOM. If confirmed as the Commander of AFRICOM, I would ensure the 
accomplishment of those responsibilities. In my view, the most 
important requirement is to detect, deter and prevent attacks against 
the United States, its territories, possessions, and bases and to 
employ appropriate force to defend the Nation should deterrence fail. 
AFRICOM's responsibilities also reflect a new and evolving focus on 
building partner operational and institutional capacity at the country 
and regional levels and supporting the efforts of other U.S. Government 
agencies in the area of responsibility. These activities are consistent 
with and seek to further the U.S. Strategy for Sub-Saharan Africa, as 
released by the President in June 2012.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. In my 36 years of military service, I have served in 
numerous positions that prepared me for this command. For the greater 
part of my career, I have focused on the training and readiness of 
soldiers to build an effective team; preparing and leading soldiers for 
missions ranging from humanitarian assistance to combat operations. 
Leading soldiers has prepared me well to do the same for joint, 
multinational, and coalition forces. As the Commander of the 
International Security Assistance Force Joint Command in Afghanistan, I 
came to appreciate the values and challenges of training Afghan forces, 
working with 50 coalition countries, and numerous interagency, 
intergovernmental, and nongovernmental organizations. As Commander, 
Multinational Command Northwest-Iraq, I worked to increase the capacity 
of Iraqi security forces. At the same time ensuring our efforts were 
coordinated with numerous partner nations, interagency and 
intergovernmental agencies and nongovernmental organizations. If 
confirmed, I will continue this effort of partnership in AFRICOM.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Commander of AFRICOM?
    Answer. Yes. If confirmed, I will schedule a series of briefings 
with the AFRICOM staff, Intelligence Community, Department of State, 
National Security Staff, and other interagency partners to better 
understand the challenges, expand the breadth and depth of my 
knowledge, and prepare myself for this position.
    Question. If confirmed, what duties and functions do you expect the 
Secretary of Defense would prescribe for you?
    Answer. The specific responsibilities of AFRICOM are defined in the 
Unified Command Plan which is approved by the Secretary of Defense and 
the President. If confirmed, I would expect to have discussions with 
the Secretary of Defense to confirm priorities for the command and to 
focus my efforts on those areas that require immediate attention.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, U.S. Africa Command 
to the following offices:
    The Secretary of Defense.
    Answer. Subject to direction from the President, the Commander of 
AFRICOM performs duties under the authority, direction, and control of 
the Secretary of Defense. In addition, the Commander of AFRICOM is 
responsible to the Secretary of Defense for the readiness of the 
command to carry out its mission.
    Question. The Under Secretaries of Defense.
    Answer. A direct command relationship between the Under Secretaries 
of Defense and the AFRICOM Commander does not exist. However, I 
anticipate that the AFRICOM Commander will regularly interact, 
coordinate, and exchange information with the Under Secretaries of 
Defense on issues relating to AFRICOM affairs. The commander should 
directly coordinate with the Under Secretaries of Defense on a regular 
basis.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. The Commander of AFRICOM coordinates and exchanges 
information with the Assistant Secretary of Defense for International 
Security Affairs as needed to discuss international security strategy 
and policy as it relates to African nations. The Commander of AFRICOM 
also coordinates as required for issues related to security cooperation 
programs and foreign military sales.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict and Interdependent Capabilities.
    Answer. The Commander AFRICOM coordinates and exchanges information 
with the Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict and Interdependent Capabilities as needed to discuss 
matters related to special operations, counterterrorism, civil affairs, 
and information operations. The AFRICOM Commander also coordinates as 
required for capabilities development to support the accomplishment of 
AFRICOM operations.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. There is not a direct command relationship between the 
Chairman and Vice Chairman of the Joint Chiefs of Staff and the AFRICOM 
Commander. The Chairman functions under the authority, direction, and 
control of the National Command Authority. The Chairman will transmit 
communications between the National Command Authority and AFRICOM 
Commander as well as oversee the activities of the commander as 
directed by the Secretary of Defense. As the principal military advisor 
to the President, the National Security Council, and the Secretary of 
Defense, the Chairman is a key conduit between a combatant commander, 
interagency organizations, and the Service Chiefs.
    The Vice Chairman serves on several councils and boards whose 
decisions affect AFRICOM including the Joint Requirements Oversight 
Council, the Defense Acquisition Board, the Defense Advisory Working 
Group, and the Senior Readiness Oversight Council. Interaction between 
the Commander of AFRICOM and Vice Chairman of the Joint Chiefs of Staff 
is important to ensure these boards and councils make informed choices 
on matters affecting the command.
    The AFRICOM Commander will keep the Chairman and Vice Chairman 
informed on significant issues regarding the AFRICOM area of 
responsibility. The Commander will directly communicate with the 
Chairman and Vice Chairman on a regular basis.
    Question. The Service Secretaries and Service Chiefs.
    Answer. There is no direct command relationship between the Service 
Secretaries and Service Chiefs and the AFRICOM Commander. The Service 
Secretaries are responsible for all affairs of their respective 
Services including functions pertaining to the administration of and 
support for forces employed by AFRICOM. The Secretaries fulfill their 
responsibilities by exercising administrative control through the 
Service Component Commands assigned to AFRICOM. In this manner, the 
Secretary of the Army is the executive agent for AFRICOM Headquarters.
    The Service Chiefs are responsible for ensuring the organization 
and readiness of each Service branch and for advising the President. 
The Service Chiefs are also members of the Joint Chiefs of Staff and 
serve as advisers to the President, National Security Council, the 
Homeland Security Council, and the Secretary of Defense. For matters 
affecting AFRICOM, I would anticipate regular communications between 
the Commander of AFRICOM and the Service Chiefs. The Commander, AFRICOM 
will rely on the Service Chiefs to provide properly trained and 
equipped forces to accomplish missions in the AFRICOM AOR.
    Question. Commander, U.S. Special Operations Command.
    Answer. The AFRICOM commander maintains a close relationship and 
communicates directly with the Commander, U.S. Special Operations 
Command, on issues of mutual interest. As a subordinate command of 
AFRICOM, Special Operations Command Africa and its units deploy 
throughout Africa supporting the AFRICOM commander's theater security 
cooperation program, deliberate plans, and operational contingencies.
    Question. The other combatant commanders.
    Answer. Formal relationships between the AFRICOM commander and the 
other geographic and functional combatant commanders will derive from 
command authority established by title 10, U.S.C., section 164, and 
from the Secretary of Defense when such relationships are established 
by him during operational missions. Combatant commanders closely 
coordinate as necessary to accomplish all assigned missions. These 
relationships are critical to the execution of our National Military 
Strategy, and are characterized by mutual support, frequent contact, 
and productive exchanges of information on key issues.
    Question. The respective U.S. Chiefs of Mission within the AFRICOM 
area of responsibility (AOR).
    Answer. Each Ambassador serves the President directly as his 
personal representative for each country. If confirmed, I will ensure 
that all activities of the combatant command in each country are fully 
coordinated with the Chief of Mission, consistent with U.S. policy.
    Question. The respective U.S. Senior Defense Officials/Defense 
Attaches (SDO/DATT)
    Answer. There is a supervisory relationship between the AFRICOM 
commander and the U.S. Senior Defense Officials/Defense Attaches. The 
U.S. Senior Defense Officials/Defense Attaches are formally evaluated 
by the AFRICOM Commander. This relationship ensures the Senior Defense 
Officials/Defense Attaches maintain close coordination with AFRICOM on 
all matters involving U.S. military forces in the country. As the 
AFRICOM commander, I will maintain a close working relationship with 
the U.S. Senior Defense Official in each country in order to coordinate 
activities between the command and the respective country's military.
                   major challenges and opportunities
    Question. If confirmed as the Commander of AFRICOM, you will be 
responsible for all military operations in that region. In your view, 
what are the major challenges and opportunities that would confront you 
if you are confirmed as the next Commander of AFRICOM?
    Answer. The security environment of the African continent is 
dynamic and, if confirmed, I will seek to counter emerging threats 
while strengthening African nations' capabilities to effectively 
address their own security challenges. A major challenge is effectively 
countering violent extremist organizations, especially the growth of 
Mali as an al Qaeda in the Islamic Maghreb safe haven, Boco Haram in 
Nigeria, and al Shabaab in Somalia. In order to effectively do so, 
AFRICOM relies on current African Partners and seeks the opportunity to 
develop new partnerships. Currently, there is an opportunity to assist 
the Nations of Libya, South Sudan and Somalia as they continue to 
develop their armed forces and develop governmental structures.
    Question. If confirmed, what plans do you have for addressing these 
challenges and opportunities?
    Answer. If confirmed, I will support the administration's whole of 
government approach implementing the U.S. Strategy Toward Sub-Saharan 
Africa. We will continue our commitment to protect our Nation from 
threats emanating from the African continent and strengthen the defense 
capabilities of our African partners and seek to develop new 
partnerships. If confirmed, I will review and assess AFRICOM's programs 
and strategy before taking any action.
                       u.s. objectives in africa
    Question. In his address in Ghana in July 2009, President Obama 
reaffirmed Africa's strategic importance to the United States and our 
national interests. He identified four priorities for the U.S. 
Government's engagement efforts: (1) supporting strong and sustainable 
democracies and good governance; (2) fostering sustained economic 
growth and development; (3) increasing access to quality health and 
education; and (4) helping to prevent, mitigate, and resolve armed 
conflict. In June 2012, the administration reaffirmed these priorities 
in the U.S. Strategy Toward Sub-Saharan Africa, emphasizing the 
increasing capacity of African states to take the lead on security 
issues on the continent, but also noting the continuing challenges.
    In your view, what is AFRICOM currently doing to advance each of 
these objectives?
    Answer. AFRICOM's primary contribution is in the area of helping to 
prevent, mitigate, and resolve armed conflict. The command works with 
African partner nation's military forces to strengthen their defense 
capabilities so that they are better able to address security 
challenges. AFRICOM's operations, exercises and theater security 
cooperation engagements focus on advancing this priority. The command's 
efforts to support military professionalization and security sector 
reform efforts help to inculcate respect for the rule of law, human 
rights, and military subordination to civilian authority--all of which 
reinforce the appropriate role of a military in a democratic society. 
AFRICOM's efforts play a mostly indirect but important role in 
supporting democratic consolidation and preventing a return to conflict 
in fragile, post-conflict states. A stable and secure environment is a 
precursor to significant advances in the other three areas: supporting 
strong and sustainable democracies and good governance; fostering 
sustained economic growth and development; and increasing access to 
quality health and education.
                      counterterrorism priorities
    Question. Within the AFRICOM AOR, what do you consider the highest 
counterterrorism priorities?
    Answer. I consider the threat from al Qaeda and its affiliates to 
be the highest counterterrorism priority. The three groups in the 
AFRICOM area of responsibility--al Qaeda in the Islamic Mahgreb, al 
Shabaab, and Boco Haram--each present a threat to western interests in 
Africa. While each has not specifically targeted the United States, 
they have successfully carried out attacks on western interests and 
engaged in kidnapping. If they deepen their collaboration, they have 
the potential to be an even larger threat.
    Question. Given your current knowledge of AFRICOM programs, do you 
believe the Command's resources are aligned in a manner consistent with 
these counterterrorism priorities?
    Answer. Yes, countering violent extremist groups is the command's 
first priority.
              al qaeda in the lands of the islamic maghreb
    Question. What is your assessment of the threat posed by al Qaeda 
in the Lands of the Islamic Maghreb (AQIM)?
    Answer. Al Qaeda in the Islamic Maghreb has publicly stated the 
willingness to attack U.S. and Western interests. The group's ability 
to conduct large scale terror attacks is restricted by the paucity of 
U.S. and Western targets in North Africa and successful Algerian 
security service counterterrorism efforts. Al Qaeda in the Lands of the 
Islamic Maghreb's greatest threat to U.S. interests is likely a 
catalyst for instability in North Africa through weapons facilitation 
and training jihadists in northern Mali.
    Since the group publicly announced merger with al Qaeda on 13 
September 2006, al Qaeda in the Islamic Maghreb has been committed to 
attacks against Western targets. On 10 December 2006, it attacked a bus 
carrying expatriate employees of the Algerian-American oil company 
Brown Root and Condor. Al Qaeda in the Islamic Maghreb has continued to 
conduct bombings in Algeria, predominantly in the coastal region east 
of Algiers. On 24 January 2012, Algerian security services disrupted an 
al Qaeda in the Islamic Maghreb plot to attack U.S. or western ships 
with a small boat. The attack was disrupted in the early planning 
stages, highlighting host nation's successful efforts to contain and 
neutralize the group. On 19 January 2013, Algerian security forces were 
also successful in defeating the militants holding hostages at the 
Amenas gas plant facility.
    Al Qaeda in the Islamic Maghreb has openly operated in northern 
Mali since the collapse of government control in mid 2011. Credible 
reporting indicates al Qaeda in the Islamic Maghreb is training 
jihadist from across the region, to include members of other al Qaeda 
affiliates such as Nigeria's Boco Haram. Coupled with arms flowing from 
Qadhafi era Libyan stockpiles, al Qaeda in the Islamic Maghreb 
activities in northern Mali pose a long-term threat to security and 
stability in the region.
    Question. In your view, does AQIM pose a threat to the United 
States and/or western interests outside of its immediate operational 
area? What capacity has AQIM demonstrated to plan and carry out actions 
threatening U.S. interests?
    Answer. Al Qaeda in the Islamic Maghreb likely does not pose a 
threat to U.S. and Western interests outside its immediate operating 
area of Algeria and northern Mali in the near term, but could in the 
future. Al Qaeda in the Islamic Maghreb maintains intent and 
aspirations and will continue to work on increasing their capability 
with the help of other al Qaeda affiliates.
    Al Qaeda in the Islamic Maghreb leadership has threatened Europe in 
numerous public statements since 2006, yet continues to focus the 
majority of its efforts in North Africa. Public statements frequently 
mention Spain and France, playing on North Africa's colonial history 
with Europe to garner support from the large North African Diaspora. Al 
Qaeda in the Islamic Maghreb maintains aspirations and intent to attack 
U.S. and Western interests, and in 2012, al Qaeda in the Islamic 
Maghreb leader made a public call to target U.S. Embassies after the 
attack on the U.S. mission in Benghazi, Libya. Al Qaeda in the Islamic 
Maghreb also poses a threat to Western aircraft flying in Algeria and 
Mali. The primary threat to westerners in North Africa remains hostage 
taking.
    Question. In your view, what has been the impact of the recent 
expansion of AQIM's area of operations in northern Mali on the group's 
capacities and aims?
    Answer. Due to the emergent safe haven in Northern Mali, al Qaeda 
in the Islamic Maghreb has increased its ability to consolidate its 
resources. The French-led intervention in Mali and the return of Malian 
Forces to population centers in northern Mali have impacted al Qaeda in 
the Islamic Maghreb's ability to operate unimpeded. However, al Qaeda 
in the Islamic Maghreb is able to coordinate training, distribute 
resources, and conduct attack planning, within its own ranks as well as 
with other foreign terrorist organizations. With this capabilitiy, al 
Qaeda in the Islamic Magreb will, at the very least, aggressively 
pursue the expansion of its influence to neighboring countries, and 
might begin planning to conduct attacks against Eurpoe or the homeland 
in accordance with general al Qaeda doctrine. French-led operations in 
Mali have disrupted and slowed al Qaeda in the Islamic Maghreb, but 
there is still much work to be done.
    Question. Does AQIM have the capacity to carry out attacks in 
Europe or on European commercial aircraft flying over Northwest Africa?
    Answer. Prior to the start of the French-led intervention in Mali, 
al Qaeda in the Islamic Maghreb's growing safe haven and freedom of 
movement in northern Mali did afford greater opportunity to plan and 
execute operations. I believe it is critically important to continue to 
work with our allies and partners to address this threat.
    Question. What is your understanding of the extent to which AQIM 
has benefitted from the flow of arms from Libyan stockpiles since mid-
2011--either in terms of arming itself or profiting from regional arms 
sales?
    Answer. Al Qaeda in the Islamic Maghreb took advantage of the 
readily available stocks of weapons and ammunition accessible in Libya 
to expand and strengthen its safe-haven in northern Mali and make 
itself a more formidable military threat, as well as to indirectly 
benefit financially through long established smuggling networks already 
under its control.
    Almost immediately following the early 2011 outbreak of hostilities 
in Libya, al Qaeda in the Lands of the Islamic Maghreb began actively 
working to move weapons from Libya to its secure operating areas in 
northern Mali.
    There is no indication yet that al Qaeda in the Islamic Maghreb is 
making significant profits from the sale of Libyan arms to third 
parties. However, the instability of increasing amounts of weapons 
available in the Sahel may lead to greater opportunities to conduct 
kidnaps for ransom, al Qaeda in the Islamic Maghreb's primary source of 
revenue in the Sahel.
    Question. What is your assessment of the threat posed by the 
Movement for Unity and Jihad in West Africa, an AQIM splinter faction 
that has recently emerged in Mali and controls significant territory 
there?
    Answer. The Movement for Unity and Jihad in West Africa self-
identifies as a terrorist organization, and has openly threatened 
Western interests in the region. It maintains a working relationship 
with the regional groups Ansar al-Dine and al Qaeda in the Islamic 
Maghreb. The group has also called for local and foreign fighters to 
join together in opposing an international military intervention in 
northern Mali.
    Question. If confirmed, what efforts, if any, would you undertake 
to prevent and/or counter the spread of AQIM operations, fundraising 
activities, and ideology in North and West Africa?
    Answer. Preventing and countering the spread of al Qaeda in the 
Islamic Maghreb takes a whole-of-government approach. Military efforts 
alone are only a part of the unified action required to achieve this 
whole-of-government approach and achieve lasting results. Currently, 
the Department of Defense (DOD) is executing a Global Campaign Plan for 
Counterterrorism that supports ``. . . . U.S. Government efforts to 
disrupt, degrade, dismantle and defeat al Qaeda, its Affiliates and 
Adherents and other terrorist organizations. . . . '' As part of 
unified action, and in concert with this global campaign plan, 
AFRICOM's theater strategy and theater campaign plan, with four 
subordinate campaign plans, orients on neutralizing al Qaeda networks 
in Africa. Al Qaeda in the Islamic Maghreb is a significant component 
of that network in North and West Africa and a major focus of AFRICOM's 
North-West Africa Campaign Plan.
    Special Operations Command Africa is responsible for coordinating 
all activities to neutralize al Qaeda in the Lands of the Islamic 
Maghreb. Their operations include a counter-ideology component to deny 
al Qaeda in the Islamic Maghreb recruitment and retention efforts and 
interfere with their fundraising. These operations also include working 
closely with our critical partners to expand their counterterrorism 
capabilities, enabling them to carry the fight to al Qaeda in the 
Islamic Maghreb through ``train and equip'' missions which provide 
needed capabilities and tactics, techniques and procedures. AFRICOM is 
also working with regional organizations like the Economic Community of 
West African States to increase their capabilities and capacity to 
thwart al Qaeda in the Islamic Maghreb and their affiliates and 
adherents.
    Integral to all of this is AFRICOM's participation in the Trans-
Sahara Counterterrorism Partnership which is an interagency, Department 
of State, Department of Defense, and U.S. Agency for International 
Development, multi-year strategy aimed at defeating terrorist 
organizations and their ability to gain recruits.
    If confirmed, I will assess the current operations and adjust as 
necessary in order to maintain consistent pressure on al Qaeda in the 
Islamic Maghreb and affiliated terrorist groups while ensuring 
appropriate support for our critical partners.
    Question. What risks, if any, do you see accompanying greater 
potential AFRICOM engagement in regional efforts to expand government 
control and dismantle AQIM?
    Answer. With the increasing threat of al Qaeda in the Islamic 
Maghreb, I see a greater risk of regional instability if we do not 
engage aggressively. Our long-term fight against al Qaeda necessitates 
persistent engagement with our critical partners.
    Strengthening the defense capabilities of African states and 
regional organizations is an essential element of the AFRICOM strategy 
and mission, and supports U.S foreign policy goals in Africa and the 
core principles of the U.S. National Strategy for Counterterrorism. 
Further, building partner capacity is a major component of the 
strategic and operational approaches within the Africa Command Theater 
Campaign Plan and subordinate campaign plans.
    Recent events in North-West Africa--specifically the coup in Mali 
and loss of control of territory in the north--increased the threat of 
al Qaeda in the Islamic Maghreb to our African partners in the region 
and, ultimately, to the United States. The French-led intervention in 
Mali and the creation of an African-led International Support Mission 
(AFISMA) to help restore Mali's terroritorial integrity are positive 
steps to restoring stability to Mali. Our current efforts to support 
the French and AFISMA with planning support, intelligence sharing, 
aerial refueling, and airlift for French and AFISMA forces which will 
play a critical role in assisting international efforts to restore 
stability.
    I feel we face an increased threat to the United States if we do 
not engage with select critical partners.
    Question. To what extent does AQIM pose a threat to stability in 
Morocco and Tunisia?
    Answer. Al Qaeda in the Islamic Maghreb does not present an 
immediate threat to Morocco or Tunisia's stability, but that does not 
mean it or other extremists do not possess some capability or intention 
to conduct terror attacks in these countries. Within Morocco, the 
threat of an attack is degraded by the country's multi-dimensional 
counterterrorism strategy that includes regional and international 
security cooperation. However, these efforts do not completely negate 
the threat as evidenced by the 28 April 2011 Marrakesh bombing. Tunisia 
possesses a modest capacity to counterterrorism, but the concept is 
limited by perceptions of the former regime's heavy-handed and overly 
liberal use of previously established anti-terrorism legislation.
    Question. Do you believe current legal authorities, including the 
2001 Authorization for Use of Military Force (AUMF), are sufficient to 
enable you to carry out counterterrorism operations and activities 
against AQIM at the level you believe to be necessary?
    Answer. The current legal authorities, including the Authorization 
for Use of Military Force, to conduct counterterrorism operations and 
activities against al Qaeda in the Islamic Maghreb appear to be 
sufficient for operations in the AFRICOM area of responsibility. 
However, the Authorization for Use of Military Force is now 12 years 
old; and al Qaeda has dispersed and operates in areas far from the 
original battlefield. Given these evolutionary changes in the global 
security landscape, I intend to continuously review the current 
intelligence on al Qaeda in the Islamic Maghreb and assess whether the 
existing authorities are sufficient to take all necessary actions.
                         somalia and al shabab
    Question. What is your assessment of the threat posed by al Shabab?
    Answer. Al Shabaab is currently undergoing a significant transition 
in response to pressure from the African Union Mission in Somalia 
(AMISOM), The Federal Government of Somalia, and allied Somali forces, 
but will remain a threat for the near to mid-term in Somalia and 
increasingly in East Africa. Unable to effectively combat pro-
government forces' superior armor and weaponry, al-Shabaab has 
withdrawn to rural safe havens where it can evade enemy forces and 
project a largely asymmetric war, including improved improvised 
explosive and increased suicide bombings. No longer responsible for 
administrating large population centers, al-Shabaab can refocus its 
somewhat debilitated revenue streams on more weapons, fighters, and 
attack planning. External attacks, such as those in Kenya, are likely 
to be a continued focus as these attacks are a key component to al-
Shabaab's strategy to expel regional militaries from Somalia.
    Question. In your view, does al Shabab pose a threat to the United 
States and/or western interests outside of its immediate operational 
area?
    Answer. Al Shabaab is an al Qaeda affiliate and is likely to remain 
dedicated to the principles of al Qaeda, including executing attacks on 
the west. Al Shabaab maintains the near-term capability to threaten 
Western interests in Kenya as some elements in the large Somali 
populations throughout Kenya support al-Shabaab financially, 
ideologically, and logistically. As part of a highly mobile population 
in East Africa, these supporters also maintain the ability to move in 
and out of regional nations in support of attacks. Al Shabaab's foreign 
fighters remain the greatest threat to Western interests regionally and 
internationally.
    Question. In the last year, the United Nations-supported African 
Union Mission in Somalia (AMISOM) and its regional partners have made 
substantial military progress against al Shabaab. How would you 
evaluate the success of these efforts and the prospects for longer term 
stability in Somalia?
    Answer. AMISOM has made progress in reducing the territory under al 
Shabaab control. The capital, Mogadishu and the port of Kismaayo, 
formerly a key hub for al Shabaab, are now under the Somali Government 
and African Union Mission in Somalia control. African Union Mission in 
Somalia successes have provided space for the political process to 
work. However, the Somali Government is in the earliest stages of 
development and there is still a long way to go to ensure long-term 
stability. It will take the combined efforts of the international 
community to assist the Somali Government and people recover from more 
than 10 years of conflict.
    Question. The State Department has provided security assistance to 
Somalia's nascent national security forces for several years through 
the AU peacekeeping mission and through contractors. What role, if any, 
do you see for AFRICOM in that effort?
    Answer. AFRICOM supports Department of State efforts in preparing 
Africa Union peacekeepers deploying to Somalia as part of African Union 
Mission in Somalia by providing Global Peace Operations Initiative 
funding to African Union Mission in Somalia staff, providing secure 
communications to Africa Union Mission in Somalia contributing nations, 
and providing logistics training, excess equipment, and mentor support 
to Africa Contingency Operations Training and Assistance training in 
the region. In addition, AFRICOM has supplied niche intelligence, 
surveillance, and reconnaissance capabilities, and counterterrorism 
training to deploying African Union Mission in Somalia units, and 
additional communications via Department of Defense 1206 funding 
mechanisms. This is a critical effort and AFRICOM will continue to work 
with Department of State to support African Union Mission in Somalia 
troop contributing nations. If directed, AFRICOM is prepared to expand 
support to nascent Somalia security forces.
    Question. Do you believe current legal authorities, including the 
2001 AUMF are sufficient to enable you to carry out counterterrorism 
operations and activities against al Shabaab at the level you believe 
to be necessary?
    Answer. The current legal authorities, including the Authorization 
for Use of Military Force to conduct counterterrorism operations and 
activities against al Shabaab appear to be sufficient for operations in 
the AFRICOM area of responsibility. However, the African Union Mission 
in Somalia is now 12 years old and al Qaeda has dispersed and operates 
in areas far from the original battlefield. Given these evolutionary 
changes in the global security landscape, I intend to continuously 
review the current intelligence on al Shabaab and assess whether the 
existing authorities are sufficient to take all necessary actions.
    Question. What role, if any, do you see for AFRICOM in preventing 
further deterioration of the humanitarian crisis in Somalia, which 
according to experts remains among the worst anywhere in the world?
    Answer. The primary factor undermining humanitarian support in 
certain famine and food insecure regions in Somalia is a general lack 
of security in ungoverned spaces and/or al Shabaab resistance to relief 
operations. Department of Defense support to regional militaries serves 
to facilitate and improve aid delivery, preventing a worsening of the 
humanitarian crisis in Somalia. Regional partners such as Ethiopia and 
Kenya have demonstrated a commitment to supporting humanitarian 
assistance operations, which, as a secondary benefit, also enhances 
Somalia's internal security. AFRICOM is well positioned to support the 
broader U.S. Government's humanitarian assistance effort, and to assist 
our regional partners in key areas such as logistics, medical, 
communications, and planning.
                         nigeria and boco haram
    Question. In the past year and a half, Boco Haram's attacks in 
Nigeria have become increasingly sophisticated and deadly. There is 
concern that the group is expanding ties with other violent Islamist 
groups on the continent. In a hearing before the committee in March of 
this year, General Carter Ham, the current Commander of AFRICOM, stated 
that Boco Haram has emerged ``as a threat to Western interests.''
    Do you agree with General Ham that Boco Haram represents a threat 
to Western interests?
    Answer. Yes. Although Boco Haram's primary target set is largely 
domestic, the group demonstrated a willingness to specifically target 
western interests within Nigeria when it launched a car bomb attack 
against the United Nations' headquarters building in Abuja in August 
2011. Additionally, Boco Haram was involved in the abduction and 
subsequent murders of two western citizens in May 2011 and possibly a 
German in January 2012. Boco Haram's growing ties to the al Qaeda 
network, particularly al Qaeda in the Islamic Maghreb, almost certainly 
exacerbates the threat Boco Haram poses to western interests.
    Question. What is your assessment of Boco Haram's intentions to 
expand its scope of operations beyond domestic attacks? How do you 
assess its capability to do so?
    Answer. Boco Haram's ties to external al Qaeda affiliates, 
particularly with al Qaeda in the Islamic Maghreb, along with its 
larger regional presence and activities, will broaden its intentions to 
expand its scope of operations beyond domestic attacks. Boco Haram 
maintains presence beyond Nigeria in the neighboring countries Niger, 
Cameroon, and Chad. Additionally, there are indications that a sizable 
contingent of Boco Haram members is located in northern Mali, where 
they almost certainly augment al Qaeda in the Islamic Maghreb effort to 
secure its territorial gains and facilitate the establishment of an 
Islamic state. The group's demonstrated ability to conduct complex 
coordinated attacks with multiple vehicle-borne improvised explosive 
devices indicates Boco Haram already possesses the capability to 
conduct such an operation beyond domestic Nigerian targets.
    Question. To what extent has Boco Haram benefitted from the flow of 
arms from Libyan stockpiles since mid-2011--either in terms of arming 
itself or profiting from regional arms sales?
    Answer. Boco Haram has benefitted from the proliferation of weapons 
from Libya. Additionally, the large amount of weaponry al Qaeda in the 
Islamic Maghreb acquired from Libyan stockpiles, coupled with the the 
relationship between Boco Haram and al Qaeda in the Islamic Maghreb, 
almost certainly resulted in additional arms provided to Boco Haram. 
There has been no indication yet of Boco Haram profiting from the sale 
of weapons.
    Question. What is your assessment of the Nigerian Government's 
efforts to eliminate Boco Haram?
    Answer. Nigeria's security response to Boco Haram has had some 
isolated successes, and the Nigerian Government almost certainly has 
the will and means to continue security operations. The Nigerian 
Government is conducting a three-pronged response to Boco Haram 
including extensive security and intelligence operations, limited co-
option efforts, and a fledging public relations campaign. However, even 
if Nigeria manages to destroy all current Boco Haram factions and 
nodes, long-term stability in northern Nigeria is contingent on the 
Nigerian Government making a concerted political effort to resolve 
socio-economic issues like endemic poverty, poor economic prospects, 
political marginalization, and corruption.
    Nigeria deployed a joint task force to counter Boco Haram in June 
2011 and has steadily increased the size and scope of operations over 
the last year. Nigerian counterterrorism and counterinsurgency 
capabilities are still developing and the army and police often rely on 
heavy-handed static security operations. The army and police have been 
widely criticized for the excessive use of force which results in local 
resentment and undermines Nigeria's modest counterterrorism successes.
    Last, while some in the government acknowledge that the use of 
excessive force by the Nigerian army and the continued socio-economic 
marginalization of northern Nigeria are alienating the population and 
helping Boco Haram. There has been little progress made in addressing 
alleged human rights abuses by the security services or underlying 
socio-economic issues in northern Nigeria.
    The Nigerian Government has also indicated a willingness to pursue 
negotiations with Boco Haram. Boco Haram leadership has rejected 
negotiations, but more moderate fringe factions could still be co-
opted.
    Question. What is your assessment of Boco Haram's relationship with 
AQIM and Al Shabaab, respectively? Is there any evidence to suggest 
that Boco Haram and AQIM have developed operational links?
    Answer. Boco Haram's connection to the broader al Qaeda movement is 
primarily through al Qaeda in the Islamic Maghreb. There are few 
indications that Boco Haram has direct connections to al-Shabaab, and 
those that exist indicate al Qaeda in the Islamic Maghreb acts as an 
intermediary.
    Al Qaeda in the Islamic Maghreb appears to provide support to Boco 
Haram, evidenced especially in the manner of its resurgence after the 
Nigerian Government crackdown on the organization in 2009. Malian 
government sources show that for several years Boco Haram has sent 
operatives to train with al Qaeda in the Islamic Maghreb elements in 
the Sahel. Boco Haram has confined the majority of its attacks to 
northern Nigeria; however, the targeting of Western interests within 
Nigeria, such as the United Nations' headquarters in Abuja, may 
indicate al Qaeda in the Islamic Maghreb influence on Boco Haram's 
target selection. In addition, specific tactics used, most notably that 
of the suicide vehicle borne improvised explosive devices is almost 
certainly the influence of al Qaeda in the Islamic Maghreb on Boco 
Haram operations.
    Question. If confirmed, what role would you recommend for AFRICOM 
in building the capacity of the Nigerian security forces to respond to 
the Boco Haram threat?
    Answer. Growing and deepening the relationship with the Nigerian 
Defense Staff is crucial to securing greater partnering opportunities. 
An approach to strengthen Nigerian security forces hinges on buy-in 
from senior defense leaders who are willing to address underlying 
issues to enhance leadership, anti-corruption, and equipment and supply 
procurement deficiencies. Nigeria is a prime example of where a whole-
of-government approach is critical to address the complex Boco Haram 
threat which is exacerbated by underlying political, economic and 
social fractures.
    Question. What risks, if any, do you see accompanying greater 
potential AFRICOM engagement in regional efforts to expand government 
control and dismantle Boco Haram?
    Answer. My chief concern would be the risks associated with the 
performance of U.S. trained or equipped Nigerian defense forces 
continuing on a path of unprofessional activity--violence against 
civilians, illegal detainment, and ultimately, ineffective operations 
against Boco Haram.
    Question. Do you believe current legal authorities, including the 
2001 AUMF are sufficient to enable you to carry out counterterrorism 
operations and activities against Boco Haram at the level you believe 
to be necessary?
    Answer. The current legal authorities, including the Authorization 
for Use of Military Force to conduct counterterrorism operations and 
activities against Boco Haram appear to be sufficient for operations in 
the AFRICOM area of responsibility. However, the Authorization for Use 
of Military Force has been in place for 12 years and al Qaeda has 
dispersed and operates in areas far from the original battlefield. 
Given the evolutionary changes in the global security landscape, I 
intend to continuously review the current intelligence on Boco Haram 
and assess whether the existing authorities are sufficient to take all 
necessary actions.
    Question. Violent incidents, reportedly including indiscriminate 
killing of civilians, committed by Nigerian police and military 
services during operations intended to be against Boco Haram have risen 
significantly in recent months.
    In your view, what measures should the United States incorporate 
into current and future military-to-military engagements to help stem 
these incidents?
    Answer. Basic military professionalization underlies all engagement 
with Nigerian Defense Forces. This includes orchestration of a training 
program by AFRICOM and often delivered by U.S military judge advocates 
through the Defense Institute for International Legal Studies. The 
AFRICOM effort is to advance the rule of law in African militaries, 
address human rights laws, respect for international law, and the law 
of armed conflict. Increasing the intensity and depth of this program 
using Defense Institute for International Legal Studies and similar 
training resources would be an important step toward stemming 
indiscriminate violence.
    Professionalization of military forces is also a key reason for a 
preference toward use of U.S. uniformed trainers. The objective is to 
model the U.S. Army's soldier code of conduct and ethics and also to 
demonstrate a disciplined Noncommissioned Officer Corps.
                                  mali
    Question. What is AFRICOM currently doing to respond to the 
situation in northern Mali, including the significant expansion of 
AQIM's operational presence there?
    Answer. It is my understanding that AFRICOM is accelerating its 
cooperation with Mali's neighbors and continuing to explore ways to 
counter the threat posed by al Qaeda in the Islamic Maghreb and its 
sympathizers while at the same time supporting international 
intervention efforts.
    The situation in Mali's north is complicated by al Qaeda in the 
Islamic Maghreb's growing entrenchment into political and religious 
institutions, unaddressed grievances, vast ungoverned expanses, porous 
borders, and continuing spillover from the instability in Libya. A 
successful solution will require working closely with the international 
community--in particular Mali's neighbors and the Economic Community of 
West African States--to fully restore credible, elected political 
leadership in Mali while addressing the growing humanitarian crisis and 
strengthening the Malian security forces, ultimately restoring 
governance and security for the whole of Mali's territory.
    Question. What is your understanding of the impact of the 
suspension of U.S. security assistance programs in Mali on AFRICOM's 
activities in Mali and the region?
    Answer. Following the March coup, and pursuant to section 7008 of 
the Department of State Foreign Operations and Related Programs 
Appropriation Act, the United States suspended all security assistance 
to the Government of Mali on 19 April 2012. As a result, there 
currently is very little U.S. military engagement with Mali. U.S. law 
dictates that U.S. security assistance to Mali remains on hold until 
elections are held and a democratically-elected government takes 
office. Once legal and policy requirements are met, military 
engagements can resume, AFRICOM would then consider growing military 
professionals through the International Military Education and Training 
program, Counterterrorism Fellowship Program and the Department of 
Defense Human Immunodeficiency Virus Infection/Acquired 
Immunodeficiency Syndrome Prevention Program.
    AFRICOM and its components currently maintain border-security, 
peacekeeping, and counter-terrorism training with most of Mali's 
neighbors until a direct solution in Mali becomes possible.
    Question. If confirmed, what steps would you propose to reshape the 
Trans-Sahara Counterterrorism Partnership (TSCTP) and the Defense 
Department's complementary Operation Juniper Shield (formerly Operation 
Enduring Freedom-Trans Sahara) in light of regional security and 
governance setbacks stemming from the crisis in Mali?
    Answer. The Trans-Sahara Counterterrorism Partnership continues to 
be the U.S. Government's regional construct for counterterrorism 
partnership in the Trans-Sahel and we will continue to work closely 
with our interagency and regional partners to further the Partnership's 
objectives.
                                 libya
    Question. The recent attack on the U.S. Consulate in Benghazi which 
resulted in the death of four American citizens, including the American 
Ambassador, Christopher Stevens, demonstrated that post-conflict Libya 
is wrought with security challenges that have implications for the 
future of Libya and the region as a whole. Conversely, as Libya 
transitions to a representative government, the United States is 
presented with a historic opportunity to redefine U.S.-Libyan 
relations.
    What role, if any, do you envision the United States playing in 
helping Libya build capable security institutions?
    Answer. Department of Defense should have a supporting role to the 
broader U.S. Government and international community effort to establish 
security institutions in Libya. The Department of Defense sponsored 
Defense Institution Reform Initiative and Minister of Defense Advisor 
programs are approved for Libya. The Defense Institution Reform 
Initiative team made three visits to Libya. All support to the 
government of Libya will remain difficult until the security situation 
improves, and the U.S. Embassy, Tripoli can support temporary 
personnel.
    Question. What is your assessment of the risks associated with the 
paramilitary forces that continue to have control of large swaths of 
Libya?
    Answer. The hundreds of disparate militias still operating in Libya 
a year after the revolution represent a significant threat to the 
future stability of Libya. Their continued presence undermines the 
authority of the government and creates the potential for continued 
armed conflicts over territory, ethnic ideology, and revenge killings, 
as well as creating a more permissive environment for al Qaeda and 
other violent extremist organizations to operate. The post-
Revolutionary Libyan Governments have attempted several programs to 
disarm, demobilize, and integrate these militias into military and 
security services, but the pace for progress remains slow. It is too 
early to tell if current Prime Minister Ali Zeidan's Government will 
continue to rely on loosely affiliated militias to provide security 
throughout Libya.
    Question. What is your assessment of the impact of the 
proliferation of weaponry from Libyan military stockpiles into 
neighboring countries?
    Answer. The availability of weapons from depots in Libya has 
invigorated illicit arms smuggling across Africa, particularly in the 
northwest. The Sahel ranks among the world's principal smuggling routes 
and is maintained by militants from local Tuareg tribes who assist in 
trafficking arms. After the collapse of the Qadhafi Government in 
Libya, hundreds of looted missiles, Kalashnikov rifles, rocket 
propelled grenades, and small weapons were sold throughout the Sahel. 
Additionally, experts estimate Libya had as many as 20,000 first-
generation manportable air defense systems before the uprising, at 
least some of which are likely in the hands of terrorist organizations 
and militias seeking to incite further instability in Africa and the 
Middle East. Armed Tuaregs fighting for Qadhafi returned to homelands 
in Mali and Niger and smuggled weapons that fueled the Mali rebellion, 
further destabilizing the region and reinforcing a safe haven for al 
Qaeda in the Islamic Maghreb.
    Question. In your view, what role, if any, should AFRICOM play in 
assisting the Libyans with addressing the threat to stability posed by 
paramilitary forces?
    Answer. AFRICOM should have a complimentary role in assisting Libya 
with their militia threat, supporting USAID as the lead U.S. agency for 
Disarmament, Demobilization, and Reintegration. AFRICOM should support 
proposals for 1206 (counterterrorism) and 1207a (border security) to 
develop a core capacity for the Libyan military with personnel that 
have come under the government's control. AFRICOM should also support 
Foreign Military Sales cases using Libyan national funds to strengthen 
the military infrastructure.
    Question. What do you view as the most significant challenges to 
the Libyan Government in building capable and sustainable security 
institutions?
    Answer. The Libyan Government's most significant challenge is its 
lack of control of the militias operating in Libya. This condition is 
exacerbated by the proliferation of conventional weapons and unsecured 
borders. Together, this is leading to a rise of terrorist activity, 
particularly in Eastern Libya.
    Question. In what ways can the United States be most effective in 
assisting the Libyan Government in building capable and sustainable 
security institutions?
    Answer. The United States can be most effective by assisting the 
Libyan efforts at disarmament and working with the individual services 
in Libya to assist them with their development. AFRICOM has organized 
visits by the Libyan Air Force and Navy Chiefs of Staff. Increasing the 
International Military Education and Training to better facilitate 
Libyan participation in U.S. senior service schools, English language 
training, and other training in the United States will also be 
beneficial.
    Question. With the experience of Benghazi as context, do you feel 
that the mechanisms for rapidly moving forces from EUCOM to respond to 
crises in AFRICOM are adequate? Are there improvements to this process 
that you recommend?
    Answer. The newly assigned Commander's In-extremis Force, Army 
allocated Regionally Aligned Force, and the Special Purpose Marine Air 
Ground Task postures AFRICOM to better plan for and respond to 
contingencies. We recommend the Commander's In-extremis Force be placed 
in Europe for a shorter response time to the continent. We will 
continue to closely coordinate with the Department of State and country 
Ambassadors to ensure an accurate understanding of U.S. Africa 
Command's response times and capabilities as we support activities on 
the African continent. Additionally, with tighter budgets and declining 
resources, we must look at more agile ways to share resources between 
forces assigned to Europe and Africa.
                                algeria
    Question. In your view, what is the appropriate role for Algeria to 
play in addressing transnational security threats in the Sahel, 
including AQIM? If confirmed, what steps would you take to encourage 
Algeria to play a more active and constructive role in addressing 
security threats emanating from northern Mali?
    Answer. Algeria's military is the most capable of any country in 
north Africa. As such, I view Algeria as a regional leader, capable of 
coordinating the efforts of the Sahelian countries to address 
transnational security threats. Algeria shares our concerns with the 
situation in northern Mali. Their knowledge of conditions on the ground 
in northern Mali is invaluable to the United States. To ensure 
continued Algerian cooperation on northern Mali, any military solution 
must be United Nations authorized, internationally supported, and use 
African forces. If confirmed, I would continue to encourage Algerian 
regional leadership through regional exercise and conference 
participation, senior leadership engagement and high-level bilateral 
dialogues.
    Question. What is your assessment of the operational and logistical 
capacities of the Algerian-led joint operational command structure for 
the Sahel, known as the CEMOC?
    Answer. The Algeria-based Combined Operational General Staff 
Committee plays no significant role in regional counterterrorism 
activity and is unlikely to carry out counterterrorism military 
operations for the foreseeable future. Contributing Combined 
Operational General Staff Committee members possess varied operational 
and logistical capabilities, but the Combined Operational General Staff 
Committee organization lacks operational experience and has not 
demonstrated any logistical capacity since its 2010 inception. The 
Combined Operational General Staff Committee's one major accomplishment 
has been the creation of the Unity Fusion Liaison, located in Algiers, 
Algeria, which is a mechanism for sharing operational intelligence 
between the four member nations (Algeria, Mali, Mauritania, and Niger) 
as well as Burkina Faso, Libya, and Chad. Bilaterally, however, 
participating Combined Operational General Staff Committee countries 
have conducted joint training and localized operations.
                           congo/great lakes
    Question. What is your assessment of the threat to regional 
stability posed by the ongoing military mutiny, known as the M23, in 
eastern Democratic Republic of the Congo (DRC)?
    Answer. The March 23 mutiny--the armed group known as M23--in 
eastern DRC is destabilizing the entire Great Lakes region. Over the 
course of this crisis, we have been concerned by reports of enhanced 
external support to M23. We have strongly urged all neighboring 
governments to take all necessary measures to halt and prevent any and 
all support to M23 from their territory and we have underscored to 
Rwanda that any support to M23 must permanently end. Furthermore, the 
security forces focus on the March 23 Movement has allowed other armed 
groups in the region to expand, resulting in increased ethnic violence 
and attacks on civilians across eastern DRC. The humanitarian situation 
in eastern DRC has deteriorated, and we remain gravely concerned about 
the hundreds of thousands of people displaced by insecurity and 
violence in Kivus. Additionally, numerous medical aid organizations 
have removed most staff from the area due to unacceptable security 
risks. While the Armed Forces of the Democratic Republic of Congo have 
been unable to end the M23 rebellion militarily, the Democratic 
Republic of Congo has engaged with M23 in discussions in Kampala, and 
we continue to urge the presidents and leadership of the Democratic 
Republic of Congo, Rwanda, and Uganda to continue their direct dialogue 
to address the root causes of instability. We support the United 
Nation's efforts to establish a Peace, Security, and Cooperation 
Framework among the governments in the region.
    Question. In your view, in what ways (if at all) have U.S. security 
sector reform efforts in DRC had a measurable impact on the operational 
and logistical capacity, degree of command and control, and transparent 
civilian oversight of the Congolese military?
    Answer. Assisting DRC military has been a challenge. The desired 
end-state is for a disciplined, professional military that respects 
human rights, rule of law, and civilian authority. The United States 
provides DRC officers with training and assistance in leadership 
development, military justice, civil-military relations, and respect 
for human rights. The challenge is translating these efforts into long-
term institutional capacity. Although progress is slow, there have been 
some improvements. Logistical capacity is one example: the U.S.-led 
Defense Institutional Reform Initiative complements European Union 
efforts to develop logistics doctrine by helping DRC military translate 
their doctrine into strategic and operational guidance.
    True security sector reform in DRC will require full commitment by 
the government and a unified multilateral effort among the 
international community. A memorandum of understanding between the U.S. 
Government and the Government of the DRC on security force assistance 
is forthcoming. This document will establish ground rules for security 
assistance and provide a path for improved cooperation with measurable 
conditions.
    Question. What is your assessment of the performance of the U.S.-
trained Light Infantry Battalion (LIB, known as the 391st) in its two 
deployments to date (first in Dungu, for operations to counter the 
Lord's Resistance Army, and currently in Goma, for operations to 
counter the ongoing M23 rebellion)? What has been the impact of the LIB 
training program--which was carried out in 2010 and supported by 
AFRICOM advisors--on the overall capacity, control, and oversight of 
the Congolese forces? If confirmed, would you support additional U.S. 
operational and logistical training for the Congolese military?
    Answer. The 391st Light Infantry Battalion (LIB) has been 
scrutinized because of its standing as a U.S. trained unit. There are, 
however, limited metrics to measure the battalion's combat 
effectiveness and performance in protecting civilians. During a 2012 
assessment, AFRICOM's Counter-Lord's Resistance Army Control Element 
found that morale was high and the officers and enlisted soldiers 
appear motivated, organized and trained in small unit maneuver and 
tactics. While the unit appears tactically proficient, they have had 
limited engagements against Lord's Resistance Army and March 23 
Movement targets. This prevents a full understanding of the combat 
effectiveness of the 391st LIB. It can be noted, however, that during a 
minor firefight with March 23 Movement, the 391st stood its ground.
    The 391st LIB illustrates the larger institutional challenges 
within DRCs military and broader defense sector reform. While this unit 
is highly respected by senior military and government leaders within 
the DRC, it has not had a significant impact on the overall capacity, 
control and oversight of Congolese forces. The rebellion by the March 
23 Movement underscores that the Armed Forces of the Democratic 
Republic of Congo remains a fractured military with a profound need for 
national-level security sector reform. Broad security sector reform 
will require full commitment by the government of the Democratic 
Republic of the Congo and a unified multilateral effort among the 
international community--a single U.S. trained battalion will not 
change the core institutional challenges within the Democratic Republic 
of the Congo.
    Question. If confirmed, what changes (if any) would you propose to 
U.S. security assistance for Rwanda in light of the Rwandan military's 
alleged role in supporting the M23 in contravention of United Nations 
sanctions?
    Answer. Ensuring peace and security in Darfur, Sudan is a key U.S. 
policy priority. Rwanda supports this policy priority by providing 
3,200 peacekeepers to the United Nations--African Union Mission in 
Darfur, and 850 peacekeepers to the United Nations Mission in South 
Sudan. While we continue to support Rwanda's participation in United 
Nations peacekeeping missions in Africa, we recognize that the March 23 
Movement would not be the threat it is today without external support 
including evidence of support from the Rwandan Government. As the 
United States has made very clear, Rwanda must permanently end all 
forms of support to Congolese armed groups. For these reasons, we also 
cut approximately $200,000 of fiscal year 2012 Foreign Military 
Financing (FMF) to Rwanda, as required by law. The Department continues 
to closely monitor reports of external support and we will continue to 
respond appropriately.
    Question. What is your assessment of the current operational 
capacity of Burundian troops serving in the African Union Mission in 
Somalia (AMISOM)? In your view, what has been the impact of U.S. 
military training for Burundian troops deploying under AMISOM on 
Burundi's internal stability and on regional stability in the Great 
Lakes?
    Answer. The Burundian National Defense Forces operating as part of 
AMISOM are very good tactically at the lower level (squad-company) and 
have interacted well with the Uganda People's Defence Force in shared 
sectors. However, they lack staff planning ability at battalion and 
higher levels.
    The training the United States has provided to the Burundians has 
helped to integrate their forces at the lower levels and unified their 
armed forces, which, as recently as 5 years ago, were still fighting 
remnants of a civil war. Burundi works with neighboring countries to 
improve security in border areas. They are increasingly concerned with 
instability in the Kivu area of Democratic Republic of the Congo and 
the resulting refugee flows. Their focus, however, remains on African 
Union Mission in Somalia and internal stability.
           building partner capacity and security assistance
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations, including the global train and equip authority (``section 
1206''), Global Security Contingency Fund (GSCF), and the associated 
transitional authorities for East Africa within the GSCF statute.
    What is your understanding of the purpose of the section 1206 
global train and equip authority and GSCF?
    Answer. Section 1206 since its inclusion in the 2006 National 
Defense Authorization Act has allowed AFRICOM to increase capability of 
our partners to conduct counterterrorism activities. AFRICOM has 
concentrated its efforts in the east and northwest areas where the 
greatest threat exists. The 1206 authority is more responsive than 
other security cooperation methods such as Foreign Military Financing 
and is a critical tool. All combatant commands must compete annually 
for funds under this program. This annual competition challenges a 
longer-term approach to program development for partner nations. While 
AFRICOM does not have U.S. Forces employed in stability operations, the 
counterterrorism aspects of 1206 have been heavily used in support of 
partner nations requirements against al Shabaab and al Qaeda in the 
Islamic Maghreb or to provide security in countries that may be 
threatened by them. Section 1206 is a particularly valued tool since it 
allows AFRICOM to select programs that best meet partners' needs. The 
dual-key nature of 1206, requiring Department of State and Department 
of Defense secretary approval, effectively supports interagency efforts 
to strengthen capacity building programs. However, there are inherit 
limitations of 1206 in terms of 1 year funding which makes it difficult 
to put together complex or sustained projects that are required for 
sustained engagement.
    While 1206 specifically addresses counterterrorism, the GSCF is 
intended as an interagency approach to address broader issues. The GSCF 
is in its early stages of development, but should bring a responsive 
ability to address a broad range of security issues not limited just to 
counterterrorism. Funds to implement the authority must come from both 
Department of Defense (80 percent) and Department of State (20 
percent). Under the current authority which expires in 2015, once funds 
are placed in the Security Contingency Fund, they are available until 
expended. This enables planning a bit farther into the future. To date, 
however, it is authority without a corresponding appropriation. As the 
Security Contingency Fund process matures, I believe we will see a more 
coordinated effort between Department of Defense and Department of 
State in key partner nations.
    Question. In your view, what should be our strategic objectives in 
building the capacities of partner nations in the AFRICOM AOR?
    Answer. AFRICOM's capacity building efforts seek to provide partner 
nations with the capability to solve their own problems and directly 
further the U.S. Strategy Toward Sub-Saharan Africa. When African 
nations work together to defeat terrorists like al Shabaab, threats to 
our homeland are decreased. When the United States is perceived as a 
positive influence in other regions, it assists our efforts across the 
board.
    Building Partnership Capacity is the baseline to all of AFRICOM's 
strategic lines of effort in Africa. The intent is to enable African 
partners to develop the defense capabilities necessary for the command 
to achieve its objectives. It is preferable to avoid crises that may 
demand the introduction of U.S. Forces, therefore the Command strives 
to enable African partners to build stability, control borders and 
ungoverned terrain, defeat terrorist groups, and develop militaries 
that are professional and obey the rule of law.
    An example of AFRICOM's partnership building engagement is the 
ongoing efforts with African partners that are deploying troops to 
various peacekeeping missions throughout the continent, including to 
the African Union Mission in Somalia. The Command has provided training 
and equipment that have proved to be instrumental in the success these 
forces have made in both maintaining stability and combating terrorist 
groups. The Command has also assisted Africans in developing rotary 
wing medical evacuation capabilities to be used in peacekeeping 
operations.
    Other areas of focus are providing training and equipment for 
partners for the purpose of developing strong border controls to 
prevent trafficking of weapons and narcotics which can destabilize a 
country.
    In the maritime domain, the Command has assisted regional 
organizations in developing agreements, operations, and training for 
maritime security, as well as developing courses for peacekeepers at 
select African Union regional peacekeeping training centers.
    All of these efforts combine to develop capacities among African 
partners that allow Africans to solve many of their own security 
problems. This is cost effective, does not require U.S. Forces, and 
prevents conflict.
    Question. The funding pool available for security assistance and 
other military-to-military engagement activities devoted to the AFRICOM 
AOR is extremely small and tends to be allocated to specific countries.
    What is your understanding of the role AFRICOM plays in developing 
U.S. security assistance (e.g., section 1206, Foreign Military 
Financing, International Military Education and Training assistance, 
Combatant Commander Initiative Fund, et cetera. . . . )?
    Answer. AFRICOM provides input to all of the security assistance 
processes annually, based on Department of Defense guidance, AFRICOM 
strategy and theater campaign plan prioritization. The command submits 
proposals to take advantage of authorities such as 1206 and has 
successfully utilized the Combatant Commander Initiative Fund--
specifically this year the Command was able to fund attendance of 
Libyan officers to U.S. schools. AFRICOM depends on its input to these 
programs to get its mission accomplished. Security Cooperation is the 
primary means to affect conditions on the continent.
                       defense strategic guidance
    Question. The Defense Strategic Guidance, ``Sustaining U.S. Global 
Leadership: Priorities for the 21st Century Defense'', announced by 
President Obama on January 5, 2012, includes, among other things, the 
intention of the administration and the Pentagon to ``rebalance toward 
the Asia-Pacific region.'' In his associated remarks, Secretary Panetta 
explained that the ``U.S. military will increase its institutional 
weight and focus on enhanced presence, power projection, and deterrence 
in Asia-Pacific.''
    What do you anticipate will be the impact on the operations and 
activities of AFRICOM?
    Answer. The impact on the operations and activities of AFRICOM will 
be minimal. In fact, based on the interconnectivity between Africa and 
the Asia-Pacific region, AFRICOM's activities may become more 
important. The eastern portion of AFRICOM's area of responsibility 
abuts the Indian Ocean, a centrally important component of the global 
commons, reflecting historic trade ties and encompassing sea lanes of 
communication that link Africa to the Middle East, Europe, and the 
rising powers of India and China in the Asia-Pacific region.
    Several key strategic geographic points exist around the African 
continent that are essential to the flow of commerce. For example, Camp 
Lemonnier in Djibouti sits on the western side of the Bab el-Mandeb 
waterway from Yemen and the Arabian Peninsula. The waterway is only 20 
miles across and must remain open to ensure the health of the global 
economic system. Other important choke points include the Mozambique 
Channel and the Cape of Good Hope.
    Africa is a pivotal point to the Middle East and Asia-Pacific 
providing critical access to the Indian Ocean region and an overwatch 
position for Iran. It also serves as an essential platform supporting 
U.S. Central Command Counter-Violent Extremist Organization operations.
    AFRICOM will continue to counter piracy threats emanating from 
Somalia in support of international efforts to promote a lawful 
maritime environment and global trade in the Indian Ocean region. The 
command will continue to strengthen the defense capabilities of African 
partners to solidify security gains in Somalia that underpin the 
development of effective governance, economic growth, and development.
                    dod counter-narcotics activities
    Question. DOD serves as the single lead agency for the detection 
and monitoring of aerial and maritime foreign shipments of drugs 
flowing toward the United States. On an annual basis, DOD's counter-
narcotics (CN) program expends approximately $1.5 billion to support 
the Department's CN operations, including to build the capacity of U.S. 
Federal, State, and local law enforcement agencies, and certain foreign 
governments, and provide intelligence support on CN-related matters and 
a variety of other unique enabling capabilities.
    In your view, what is the appropriate role of DOD--and by extension 
AFRICOM--in counterdrug efforts?
    Answer. In my opinion, AFRICOM's role in support of broader 
Department of Defense counternarcotics efforts should focus on three 
primary areas. First, capacity building efforts with partner nations on 
the African continent are critical to helping civilian law enforcement 
agencies, Gendarmes, and military organizations combat the growing 
menace of narcotics trafficking. Working hand in hand with partners in 
the Drug Enforcement Agency, Federal Bureau of Investigation, Customs 
and Border Protection, Immigration and Customs Enforcement, and Bureau 
of International Narcotics and Law Enforcement Affairs, among others, 
the command is able to bring the full weight of U.S. experience from 
the decades-long domestic fight against narcotics to bear in helping to 
solve this problem in Africa through training, equipping and 
information sharing initiatives. Second, through Counterthreat Finance 
efforts, the command works with U.S. interagency partners to track down 
and ultimately seize illicit proceeds that go directly to Drug 
Trafficking Organizations. Third, statutory requirement to serve as the 
lead U.S. agency for Detection and Monitoring allow the command to 
bring our tremendous technology assets to bear, and a robust cadre of 
intelligence analysts can lend great value to the International 
Community in analyzing and dismantling drug trafficking organizations.
    Question. In your view, what should be the role of the United 
States in countering the flow of narcotics to nations other than the 
United States?
    Answer. The United States has tremendous equities in helping to 
stem the world-wide manufacturing and distribution of illicit drugs, 
regardless of whether these drugs end up in the United States. In 
places like West Africa, drug trafficking and manufacturing is having a 
tremendous destabilizing effect through corruption of often senior 
government officials, increased rates of drug usage (and corresponding 
increases to rates of Human Immunodeficiency Virus Infection/Acquired 
Immunodeficiency Syndrome among Africans, and proceeds of illicit 
trafficking going towards organizations operating on the continent and 
internationally. Working with international partners through such 
organizations as the European Union and the Economic Community of West 
Africa States, AFRICOM seeks to integrate their capacity building 
efforts with those who share common interests in seeing African 
partners increase their ability to effectively address this problem. 
These integration efforts will also allow all international parties to 
better utilize funding for counternarcotic efforts.
    Question. Given that the vast majority of illegal drugs arriving in 
Africa are not destined for the United States, should DOD invest 
resources in countering the flow of illegal drugs to or through Africa?
    Answer. It is my opinion that current Department of Defense 
resources being invested in counternarcotics efforts are funds well 
spent in spite of the fact that many of the drugs are not intended for 
the United States. The destabilizing influence of narcotics 
trafficking, coupled with the financial benefits realized by terrorist 
organizations operating in Africa, make a compelling case for overall 
U.S. Government involvement in solving this problem. The cost funding 
an effective counternarcotics program in an African partner nation is 
far less than the cost of dealing with the consequences of not 
addressing this problem which could result in increased regional 
instability. Additionally, the capacity building and resources provided 
to African partners under the counternarcotics program are also 
effective in helping to improve border control and reduce the 
trafficking of other illicit goods like weapons and persons.
    Question. Illicit trafficking is a growing concern in Africa. West 
Africa is a node for Latin American drugs transiting to their primary 
destination in European markets. In addition, drugs and their 
precursors originating on other continents are transshipped through 
Africa. Despite the increase in illicit trafficking across the African 
continent, AFRICOM has secured a limited amount of funding for its 
counternarcotics efforts.
    What is your assessment of the current AFRICOM counternarcotics 
program?
    Answer. It is my understanding that the AFRICOM counternarcotics 
program has improved the capacity of African nations to more 
effectively address their challenges in this area. To date, the 
program's efforts have primarily been focused in West Africa, working 
with countries such as Ghana, Senegal, and Cape Verde. The command's 
capacity building efforts have had a direct, positive impact on these 
countries' capabilities, as evidenced by the October 2011 seizure in 
Cape Verde of 1.5 tons of cocaine, which was directly supported by the 
Counter Narcotics-funded Cape Verde Maritime Operations Center. 
Additionally, the Counter Narcotics program has taken the lead in 
coordination with the Department of State in developing the West 
African Cooperative Security Initiative, a whole-of-government approach 
that better integrates all U.S. Government counternarcotics efforts in 
this important region.
    Question. Based on your review of the current program, if 
confirmed, what changes, if any, are you interested in exploring?
    Answer. If confirmed, I will assess the current program before 
recommending changes. The Counter Narcotics program has been effective 
in establishing a presence and making a difference in West Africa, 
however, this is not the only region of Africa with a narcotics 
trafficking problem. East Africa, particularly Kenya and Tanzania, is 
experiencing an increase in heroin trafficking across the Indian Ocean 
from Afghanistan and Pakistan destined for U.S. and European markets. 
Additionally, in the Sahel region of North Africa, cocaine and hashish 
trafficking is being facilitated by, and directly benefitting, 
organizations like al Qaeda in the Islamic Maghreb leading to increased 
regional instability.
                         lord's resistance army
    Question. Despite pressure by the Ugandan People's Defense Forces 
(UPDF) and efforts by U.S. Special Operations personnel to support 
them, elements of the Lord's Resistance Army (LRA)--including Joseph 
Kony--continue to operate and commit atrocities against civilian 
populations in the Central African Republic, Democratic Republic of the 
Congo, and South Sudan. Some observers have identified operational 
concerns with this mission, including that: (1) supported forces are 
trying to find an elusive foe in an area roughly the size of 
California, much of which is covered in thick jungle; (2) technical 
support to U.S. Forces and their UPDF partners from the defense and 
intelligence community continues to be inadequate; and (3) limitations 
continue to be placed on the ability of U.S. Special Operations 
personnel to accompany UPDF partners outside of main basing locations, 
thereby limiting the level of direct support they can provide.
    In your view, what is the objective of Operation Observant Compass?
    Answer. The Governments of Uganda, the Central African Republic 
(CAR), the Democratic Republic of the Congo (DRC) and Republic of South 
Sudan, in collaboration with the African Union, continue to dedicate 
material and human resources to bring an end to the threat posed by the 
LRA. They are leading this effort, and the United States is committed 
to supporting this regional effort. Through our engagement, we are 
strengthening partnerships and regional cooperation.
    The United States is providing cross-cutting support to advance 
four objectives: (1) the increased protection of civilians; (2) the 
apprehension or removal from the battlefield of Joseph Kony and senior 
LRA commanders; (3) the promotion of defections and support for the 
disarmament, demobilization, and reintegration of LRA fighters; and (4) 
the continued humanitarian relief of affected communities.
    Question. In your view, what is the appropriate level of priority 
to be accorded to AFRICOM's efforts to counter the Lord's Resistance 
Army in central Africa, compared to other AFRICOM objectives?
    Answer. The command's number one priority is East Africa with 
particular focus on al Shabaab and al Qaeda networks. This is followed 
by violent extremist and al Qaeda in North and West Africa and the 
Islamic Maghreb. AFRICOM's third priority is counter-LRA operations.
    Question. If confirmed, will you promptly review and report back to 
the committee on your assessment of this mission?
    Answer. This deployment is not open-ended and we will continue to 
regularly assess and review whether we are making sufficient progress. 
I commit to reporting to the Committee on this deployment at any time 
you request.
    Question. Each of the countries currently affected by the LRA face 
other security threats viewed by their governments as more serious to 
their national well-being and, as a result, these countries place a 
lower priority on addressing the LRA problem.
    If confirmed, how would you seek to strengthen the impact of 
Operation Observant Compass while recognizing those competing national 
priorities of our partners in the counter-LRA fight?
    Answer. If confirmed, I will continue to work to maximize the 
success of Operation Observant Compass by seeking, within the 
parameters of the current mission, to deepen cooperation with Ugandan 
and other regional forces and increase intelligence that is appropriate 
to the operating environment.
       support to united nations peacekeeping missions in africa
    Question. In testimony before the House Committee on Foreign 
Affairs on July 29, 2009, Ambassador Susan Rice, U.S. Ambassador to the 
United Nations (U.N.), stated that the United States ``is willing to 
consider directly contributing more military observers, military staff 
officers, civilian police, and other civilian personnel--including more 
women I should note--to U.N. peacekeeping operations.'' Admiral Mullen 
has said he views ``U.N. peacekeeping operations to be extremely 
important and cost effective in comparison to unilateral operations'' 
and that ``the success of these operations is very much in our national 
interest.''
    In your view, should the United States increase the number of 
personnel it contributes in the form of staff positions and military 
observers to U.N. peacekeeping missions and other international peace 
operations?
    Answer. I agree with Ambassador Rice and Admiral Mullen and support 
an increase in contributions to U.N. peacekeeping operations. United 
Nations peacekeeping operations play a vital role in advancing the goal 
of improved peace, stability and security throughout Africa. 
Peacekeeping operations support United Nations objectives, while they 
also help to advance U.S. security interests. The U.S. role in United 
Nations peacekeeping operations, whether in the form of civilian 
police, staff officers, or military observers, may offer the United 
States a cost-effective way to continue to advance our mission and 
interests.
    Question. In your view, what are the advantages and disadvantages 
of contributing additional military personnel to U.N. operations in the 
form of staff positions and military observers' positions?
    Answer. In considering increasing U.S. personnel contributions to 
U.N. peacekeeping operations, it is important to balance the advantages 
and disadvantages that accompany any decision to deploy American 
military personnel. As Admiral Mullen described, United Nations-led 
peacekeeping operations can be cost effective, especially in comparison 
to unilateral operations. For the majority of these operations, sharing 
the manpower and financial burden among donor organizations and 
countries allows the international community to do more with less. U.S. 
personnel support to U.N. operations offers the United States the 
unique opportunity to build relationships and trust that could be of 
future benefit. When U.S. military personnel work in partnership with 
other U.N. members' military personnel, they build long-lasting 
relationships centered on trust and a sense of shared purpose, while 
gaining invaluable cultural, regional, and international experience 
which helps to further our national interests.
    Careful thought and planning must accompany any decision to 
establish or increase the U.S. participation in U.N. peacekeeping 
operations. It is vital that we understand the security risks to our 
troops and personnel, while we also have a complete understanding of 
how U.S. personnel will operate within the U.N. mission. The posting of 
U.S. personnel to U.N. missions and operations always require a clearly 
defined chain of command in order to mitigate any potential problems or 
concerns. Any increase in U.S. support for U.N. operations will 
necessarily incur a personnel cost and commitment that must be 
understood, accepted, planned for, and managed. Finally, and most 
importantly, significantly increasing the U.S. presence, or in some 
cases even creating a U.S. presence for small U.N. operations, carries 
the risk of overshadowing other participating nations.
       national strategy to combat transnational organized crime
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing. The Director of National 
Intelligence recently described transnational organized crime as ``an 
abiding threat to U.S. economic and national security interests,'' and 
stated that ``rising drug violence and corruption are undermining 
stability and the rule of law in some countries'' in the Western 
Hemisphere. In July 2011, the President released his Strategy to Combat 
Transnational Organized Crime: Addressing Converging Threats to 
National Security. One of the priority action areas designated in the 
strategy is ``enhancing Department of Defense support to U.S. law 
enforcement.''
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The Department of Defense plays an important supporting 
role in the implementation of the President's strategy, which declares 
that transnational organized crime is a threat to national and 
international security. The strategy provides a valuable framework from 
which AFRICOM can address this complex problem set, in partnership with 
other U.S. Government agencies and foreign partners. Illicit drug 
trafficking is but one facet of an interconnected transnational threat 
that is directly destabilizing many countries in Africa. As part of a 
whole-of-government approach to combating transnational organized 
crime, the Department of Defense can bring to bear unique authorities 
and capabilities to augment those of our law enforcement, intelligence, 
and foreign partners so we address the threats transnational organized 
crime pose in a coordinated manner.
    Question. What is your assessment of the threat to the United 
States posed by transnational organized crime operating in the AFRICOM 
AOR?
    Answer. Transnational organized crime in the AFRICOM area of 
operations threatens U.S. interests by taking advantage of failed 
states and contested spaces, forging alliances with corrupt government 
officials and some foreign intelligence services, destabilizing 
political, financial, and security institutions in fragile states, 
undermining competition in world strategic markets, using cyber 
technologies and other methods to perpetrate sophisticated frauds, 
creating the potential for the transfer of weapons of mass destruction 
to terrorists, and expanding narcotics, weapons, and human trafficking 
networks. Terrorists and insurgents are increasingly turning to 
criminal networks to generate funding and acquire logistical support, 
amplifying the threat to U.S. interests.
    Question. What role does AFRICOM play in combating transnational 
organized crime and in training and equipping partner security forces 
that have been tasked with combating it?
    Answer. AFRICOM conducts a number of programs that directly support 
the President's transnational organized crime strategy and Department 
of Defense guidance that addresses transnational organized crime. In 
addition to the command's Counternarcotics and Law Enforcement 
Assistance program, there are a variety of security cooperation 
programs that fund military-to-military capacity building and 
operations that enable partner nations to more effectively deal with 
security threats directly relating to transnational organized crime 
within their borders. The Command's newly-established Counterthreat 
Finance program is another important tool that allows the command to go 
after financial proceeds from these illicit activities.
                         counterthreat finance
    Question. A number of officials in DOD and the Intelligence 
Community have called for investing additional resources in identifying 
and tracking the flow of money associated with terrorist networks and 
illicit trafficking.
    What are your views on the role of DOD in counterthreat finance 
activities?
    Answer. The Department of Defense is not and should not be the lead 
in this effort. Department of Defense does have unique capabilities and 
capacities that can be brought to bear to augment the efforts of the 
broader interagency community.
    Question. What do you believe is the appropriate role, if any, of 
AFRICOM in supporting counterthreat finance activities?
    Answer. The Department of Defense in general, and AFRICOM 
specifically, routinely contribute to threat finance activities with 
intelligence analysis to identify critical network vulnerabilities, 
providing strategic and operational planning expertise and organizing 
and executing engagement activities to help shape the environment. 
Countering threat finance activities supports efforts to counter 
violent extremists, drug traffickers and other illicit and 
destabilizing activities. Additionally, the Kingpin Act has proven to 
be an effective tool for the command to use to go after the highest-
level drug traffickers through direct financial sanctions.
             africom's military service component commands
    Question. AFRICOM does not have any assigned forces and--as a 
result--is required to compete for forces within the global request for 
forces process. Given the Department's focus on the greater Middle East 
and Asia-Pacific, do you believe the AFRICOM Commander will be able to 
secure the necessary personnel to accomplish its partnering and 
engagement mission within its AOR? If not, how would you assess the 
risk to U.S. strategic interests in the region?
    Answer. If confirmed, I plan to assess the requirements AFRICOM 
currently fulfills regarding partnering and engagement missions and 
report those finding back to this committee in a timely manner.
    However, to my understanding, the command has adequate access to 
resources to accomplish its partnering and engagement missions. 
AFRICOM's access to rotationally allocated resources has increased over 
the past 2 years through efforts such as the allocation of a Special 
Purpose Marine Air Ground Task Force in fiscal year 2012 and the 
allocation of a U.S. Army Regionally Aligned Force in fiscal year 2013. 
These assets provide much needed flexibility to respond to 
opportunities for engagement that arise on the continent. For example, 
the Special Purpose Marine Air Ground Task Force has filled a key role 
in our support to the African Union Mission in Somalia by providing a 
10-week training course for deploying African troops. This engineering 
focused course teaches deploying troops valuable route clearing 
techniques against Improvised Explosive Devices, increasing 
survivability of deployed troops and reducing the threat to civilian 
populations. The efforts of the Special Purpose Marine Air Ground Task 
Force, coupled with a wide variety of other U.S. Government programs, 
are helping Africa Union Mission in Somalia forces to make a positive 
difference.
    The threat to U.S. strategic interests including the global 
economic system and American citizens at home and abroad will continue 
to increase if the partnership and engagement missions are curtailed or 
reduced. There are many opportunities to partner with stable African 
partners and to develop partnerships with newly emerging governments. 
As opportunities arise, other entities see opportunities to capitalize 
on undergoverned and ungoverned spaces on the continent. The attack on 
the U.S. Embassy in Benghazi and the subsequent unrest in many areas 
across the continent in the days that followed are illustrative to the 
impact these threats can have if partners are not capable of 
establishing and maintaining a secure environment for their citizens.
     regional alignment and rotational deployments of army brigades
    Question. The Army plans to align general purpose combat brigades 
with regional combatant commands, including AFRICOM, to support theater 
engagement and security force assistance missions and to make those 
forces, and other supporting units, available on a rotational basis for 
deployment to those regions for training and exercises.
    What is your understanding and assessment of the Army's capability 
and capacity to align combat brigades or other units with regional 
combatant commands?
    Answer. The Army is in the process of developing its Regionally 
Aligned Force concept and is conducting a ``proof of principle'' with a 
brigade combat team aligned to AFRICOM in fiscal year 2013. The Army's 
objective is to enhance its support of combatant commanders. Regionally 
Aligned Force brigades receive training in culture, geography, 
language, and gain an understanding of the militaries they will engage 
during their mission alignment.
    Question. What are your views, if any, on the use of general 
purpose forces for missions providing security force assistance to 
other nations' militaries?
    Answer. Iraq and Afghanistan have proven that general purpose 
forces are fully capable of providing significant security force 
assistance to partner nations. As we reduce the rotational requirement 
to combat areas we can use these forces to great effect in Africa. 
General Purpose Forces will have to be fully flexible to do their 
primary mission and to work in the area of security cooperation and 
security force assistance.
    Question. In your view, how should, if at all, a unit's regional 
alignment determine the assignment of personnel, selection of unit 
commanders, priority for cultural and language training compared to 
core combat training, and identification and acquisition of special 
equipment?
    Answer. Regionally aligned forces units will be trained to conduct 
the full range of military operations, but will also receive training 
in culture, geography, language, and gain an understanding of the 
militaries they will engage during their mission alignment. The current 
Army Brigade Combat Team structure will contain most of the skill sets 
required for training and equipping missions on the African continent. 
Regionally aligned forces units will be able to ``reach-back'' into 
Division and Corps assets in the United States for more specialized 
skills.
    Question. If confirmed, how would you propose to implement the use 
of regionally aligned forces in support of your theater assistance and 
engagement strategies?
    Answer. The Department of the Army has significant authorities in 
which they can employ regionally aligned forces in support of 
geographic combatant commanders. Regionally aligned forces can be 
employed for Theater Security Cooperation activities, operational 
planning, inspections, coordination visits, and the conduct of 
exercises. If confirmed, I would find opportunities across the 
continent and within planning efforts to incorporate the expanded 
capabilities and capacity of the regionally aligned forces within these 
authorities.
    Question. In your view, how should funding responsibility be 
consolidated or distributed between the Military Departments and the 
combatant commands for training and employment of regionally aligned 
forces?
    Answer. Exercise and security cooperation activities funding is 
separate from service funds. Services exist to provide trained and 
ready forces. The regionally aligned forces should be no different. For 
the combatant commands, it will be necessary to include costs of using 
the regionally aligned force units in security cooperation proposals 
utilizing authorities like 1206 (Counterterrorism) and 1207 (Security 
and Stabilization).
    Question. In your view, is it feasible and suitable to satisfy 
theater engagement and assistance strategies completely with rotational 
forces? If not, why not?
    Answer. AFRICOM has successfully conducted operations, exercises 
and activities since its inception without permanently assigned forces. 
Like other commands, it plans and requests forces through the Global 
Force Management process.
    Question. What is your understanding and assessment of the 
performance criteria and metrics that are or will be used to evaluate 
the effectiveness and efficiency of combatant command theater 
engagement strategies and, if confirmed, how will you integrate the use 
of regionally aligned Army brigades or other units into the evaluation 
system?
    Answer. Over the last 4 years, AFRICOM has developed a 
comprehensive integrated assessment process linking all theater, 
regional and contingency plans--including all operations, exercises and 
security cooperation activities. The Command measures progress in 
achieving objectives and effects using a combination of indicators from 
multiple sources: the Department of Defense, other U.S. Government 
agencies, and numerous open-source international agencies--such as the 
United Nations, the World Bank, and the African Union. The Command also 
relies on the Department of State to provide polling data from African 
citizens to add depth and breadth to the results. The Command uses 
correlation analysis of U.S. activities and resources with progress in 
the overall environment to shape and influence the planning and 
scheduling of future engagement activities. I look forward to 
continuing the best assessment practices at AFRICOM, and ensuring that 
future Command-wide assessments support decisionmaking both at the 
Command and throughout the Department of Defense.
                   global peace operation initiative
    Question. In 2005, the United States along with our partners in the 
G-8 launched the Global Peace Operations Initiative (GPOI) to train 
peacekeepers. This program is run by the Department of State's Bureau 
of African Affairs. DOD has provided varying degrees of personnel 
support since the program's inception. A number of national militaries 
in the AFRICOM AOR have benefitted from this program and have provided 
peacekeeping troops to multilateral peacekeeping operations around the 
globe.
    What is your understanding of the GPOI program?
    Answer. Global Peace Operations Initiative is intended to address 
capacity gaps in forces supporting peacekeeping operations. Since its 
inception in 2004, the program's goal is primarily to train and deploy 
peacekeepers. The program has shifted focus to help peacekeeping 
contributing countries train and deploy themselves. The program focuses 
its effort in Africa, as it is the stage for several of the largest 
peacekeeping operations.
    Question. Would you support or oppose AFRICOM's continued 
involvement in the program?
    Answer. Based on my current understanding, I would support 
increased involvement in the Global Peace Operations Initiative. 
AFRICOM provides resources to Global Peace Operations Initiative to 
develop human capital and critical enablers to support United Nations/
African Union peacekeeping. In the future, with additional funding, 
AFRICOM could increase support to build, planning capability, 
intelligence support, logistics capacity, skills training, peacekeeping 
staffs, and other efforts critical to the success of peacekeeping 
operations.
    Question. If confirmed, will you advocate for AFRICOM to play a 
more direct role in providing U.S. military personnel (vice private 
contractors) for the training missions conducted under GPOI?
    Answer. Yes. To the extent military personnel are available. 
Integrating uniformed trainers provides a significant cost savings and 
improvement to the Global Peace Operations Initiative program while 
supporting Department of Defense and Department of State objectives to 
build the capacity of our partners. Initially I would support a hybrid 
contractor-military peacekeeping training model led by the State 
Department, coordinated with our country teams, and supported with 
military trainers, and transition to full uniformed support of Global 
Peace Operations Initiative in the future.
                       mass atrocities prevention
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10.
    Among interagency partners, what is AFRICOM's role in addressing 
atrocity threats, and what tools does AFRICOM have for preventing or 
responding to atrocities in its AOR?
    Answer. AFRICOM is committed to preventing mass atrocities. General 
Ham highlighted the importance of this to the command by including 
building the capacity of African partners to prevent and protect their 
populations from mass atrocities in his Commander's Intent. AFRICOM 
participates in and is a leader within the Mass Atrocities Prevention 
Response Options development construct within Department of Defense. 
The staff includes Mass Atrocity Prevention and Response planning into 
planning activities and includes such items as respect for the rule of 
law, submission to civil authority, and adherence to human rights norms 
into military-to-military engagements. This ultimately addresses the 
root causes of mass atrocities.
    Question. Has AFRICOM developed planning processes toward this 
effort so that it will be able to respond quickly in emergency 
situations? In your assessment, what country or countries are the most 
at risk for mass atrocities in Africa?
    Answer. AFRICOM plans for a range of contingencies in support of 
U.S. national security policy and to prepare for possible crisis 
response scenarios. AFRICOM also pursues ongoing efforts in the 
Democratic Republic of the Congo, Uganda, South Sudan, and Central 
African Republic to prevent Mass Atrocities. In Liberia, the command is 
committed to building the Liberia Security Sector to prevent a repeat 
of their disastrous recent history.
                     special operations authorities
    Question. It has been reported that Admiral McRaven, Commander of 
U.S. Special Operations Command, is seeking changes to the Unified 
Command Plan (UCP) that he believes would allow SOCOM to better support 
the requirements of the Theater Special Operations Commands (TSOC). 
Reportedly, such changes would give the Commander of SOCOM combatant 
command authority over the TSOCs--including responsibilities for 
resourcing--and provide for more rapid deployment of Special Operations 
Forces to and between geographic combatant commands without the 
requirement for approval by the Secretary of Defense in every case. 
Operational control of deployed Special Operations Forces would 
reportedly remain with the respective geographic combatant commander.
    Some have expressed concern that such changes could raise problems 
related to civilian control of the military, infringe upon the 
traditional authorities of the geographic combatant commanders, and 
make it more difficult for ambassadors and geographic combatant 
commanders to know what military personnel are coming into their areas 
of responsibility and what they are doing while they are there.
    Please provide your assessment of whether such UCP changes would be 
appropriate and can be made without conflicting with civilian control 
of the military, infringing upon authorities provided to the geographic 
combatant commanders, or raising concerns with the Department of State.
    Answer. This is a topic which will require further study. If 
confirmed, I will review Admiral McRaven's recommended changes to the 
Unified Command Plan and provide an assessment back to this committee 
in a timely manner.
    However, from my experiences in Afghanistan and Iraq, it is 
critical that Special Operations Forces are fully integrated with 
conventional forces. This integration provides the commanders and 
forces a common operational picture, allows for a more proactive and 
responsive decisionmaking process, and access to shared resources.
                       special operations forces
    Question. As forces have been reduced in Iraq and Afghanistan, 
there is an expectation that additional Special Operations Forces may 
be available for missions in other combatant commands, including 
AFRICOM, which have had only a small presence of such forces in recent 
years.
    What special operations capabilities are in highest demand by 
AFRICOM?
    Answer. Given the complex strategic environment in Africa and the 
need for persistent, distributed, low visibility and small footprint 
operations, additional Special Operation Forces specifically organized, 
trained, and equipped to operate in sensitive environments are 
required. Special Operations Forces capabilities in highest demand 
include the following: (1) experienced special operations forces ground 
operators to build and maintain partner force counterterrorism capacity 
and enable their operations; (2) Special Operations Forces focused on 
enhancing partner nation non-lethal capabilities (e.g., Civil Affairs, 
Military Information Support Operation) to shape the information 
environment and create good will; (3) Special Operations Forces 
intelligence personnel and equipment (e.g., analysts, collectors, 
associated enablers) to better illuminate the threat; and (4) Special 
Operations Forces non-standard, medium and vertical airlift (i.e., low 
signature, non-standard aviation, MC-130H, and MC-130P) to provide low 
signature movement across the continent, transport and resupply a 
crisis response force and extend the range of vertical lift platforms. 
Non Special Operations Forces assets required includes Intelligence, 
Surveillance, and Reconnaissance and Personnel Recovery/Casualty 
Evacuation rotary wing with associated enablers.
    Question. Which countries in the AFRICOM AOR do you believe have 
the greatest need for increased engagement with U.S. Special Operations 
Forces?
    Answer. To achieve a Global Special Operations Forces Network, 
Special Operations Command AFRICA requires greater access and 
engagements throughout Africa. In order to optimize effectiveness and 
strengthen our African partners' counterterrorism/counter Violent 
Extremist Organization capabilities necessitates greater engagements 
with the following key countries: Libya, Niger, Tunisia, Algeria, 
Mauritania, Nigeria, Mali, Cameroon, South Sudan, and Kenya. Greater 
collaboration and engagements within the aforementioned countries 
greatly furthers the U.S. Government counterterrorism/counterviolent 
extremist organizations efforts against the growing and interconnected 
al Qaeda threat throughout Northwest Africa and collaborative actions 
against al Shabaab within East Africa.
    In support of ongoing regional Counter-Lord's Resistance Army 
operations, U.S. Special Operations Forces are advising and assisting 
partner nation forces from Uganda, Central African Republic, Democratic 
Republic of the Congo, and the Republic of South Sudan, in addition to 
a number of United Nations missions in the region, to find and remove 
Joseph Kony and the Lord's Resistance Army as a destabilizing force in 
the region.
    While U.S. Special Operations Forces continues to build capacity in 
Counter-Lord's Resistance Army partner nation forces and has begun to 
assist the nascent African Union Regional Task Force, longer-term 
development of these forces may require an integrated Special 
Operations and Conventional Forces approach to mature the Africa Union 
Regional Task Forces as an institution and increase capacity of 
individual partner nation forces.
               special operations personnel in embassies
    Question. U.S. Special Operations Command (SOCOM) deploys personnel 
to work with country teams in a number of high priority countries where 
the United States is not engaged in direct action operations, but 
rather trying to train host nation security forces. Their mission is to 
support the priorities of the Ambassador and the combatant commander's 
theater campaign plan. At times, Ambassadors have complained that they 
have not been adequately informed of activities by special operations 
forces in their country.
    If confirmed, what do you intend to do to make sure the goals of 
special operations personnel deployed to these countries are aligned 
closely to those of the Ambassadors with whom they are working?
    Answer. If confirmed, I will ensure the activities of special 
operations personnel, as well as all personnel, are coordinated with 
the embassy Chief of Mission. AFRICOM currently conducts this 
coordination by requiring Chief of Mission concurrence on operations, 
exercises and engagement activities.
                  marine security guards in embassies
    Question. Due to the attack on the U.S. consulate in Benghazi, 
Libya, which resulted in the death of a U.S. ambassador and three other 
Americans, many are conveying concern about the safety of U.S. 
diplomatic personnel around the world.
    Do you share this concern?
    Answer. Yes. The Marine Corps has a longstanding relationship with 
the Department of State to provide internal security at diplomatic 
posts. The Marine Security Guard Detachment Commander, acting under 
operational supervision of the Regional Security Officer, is tasked 
with providing internal security functions to prevent the compromise of 
classified information and equipment vital to the national security of 
the United States. A secondary mission of Marine Security Guard is to 
provide protection for U.S. citizens and U.S. Government property 
located within diplomatic premises. Under certain emergency situations 
they will provide special protective services to the Chief of Mission 
or Principal Officer. These protocols have proven successful for the 
past several decades, and provide flexibility to Regional Security 
Officers for the employment of Marine Security Guards upon diplomatic 
posts.
    Question. The Marine Security Guard Program was established in 
1946, and its mission, to provide internal security at designated 
embassies of classified information and equipment, remains unchanged to 
this day.
    In light of increasing threats to U.S. diplomatic personnel by 
terrorists throughout the world, do you believe it is time to re-
examine the Program's mission and protocols?
    Answer. I believe the Marine Security Guard Program, as defined 
under existing protocols between the Marine Corps and Department of 
State, functions well and meets the needs of our diplomatic missions 
around the world. However, based on changing security dynamics we are 
in the process of taking a look at what changes to the program might be 
necessary. I fully appreciate the importance of this mission and 
understand it is important to work closely with the Department of State 
to ensure our Marine Security Guard organization, mission and security 
protocols are responsive to their needs.
    Question. If so, should it be broadened to provide additional 
protection to U.S. diplomatic personnel?
    Answer. At this time, I don't believe the program should be 
broadened to provide additional protection to U.S. diplomatic 
personnel. However, the Marine Corps has a long history of working with 
the State Department, and should adjustments be required, will work 
eagerly to ensure the internal security functions aboard diplomatic 
premises meet the standards required.
    Question. In your opinion, what additional steps, if any, should be 
taken to reduce the risk of attacks on U.S. embassies and consulates 
and diplomatic personnel by terrorist organizations within Afghanistan 
and throughout the region?
    Answer. We must continue to monitor threats to our diplomatic posts 
in Afghanistan and around the region, and adjust our security posture 
based on the threats and changing conditions on the ground. External 
security at our embassies and consulates is, first, the responsibility 
of the host nation and must remain so. In Afghanistan, we maintain a 
heightened security posture, and will continue to do so, in order to 
reduce risks commensurate with local threats and to advance the 
important work of our diplomatic personnel.
      intelligence, surveillance, and reconnaissance capabilities
    Question. Demand for intelligence, surveillance, and reconnaissance 
(ISR) capabilities of every kind has grown exponentially in recent 
years largely due to the enhanced situational awareness and targeting 
capabilities they bring to our commanders. Almost all of the geographic 
combatant commands have validated ISR requirements that are not being 
met.
    What is your understanding of the support AFRICOM is currently 
receiving to respond to its ISR requirements?
    Answer. ISR assets are a scarce resource and should be allocated 
based on threat. My understanding is AFRICOM does not receive 
intelligence, surveillance, and reconnaissance assets to meet its 
requirement. However, Department of Defense has provided additional 
assets to meet specific needs for operations such as in response to 
recent attacks in North Africa. This year, AFRICOM will receive 
additional intelligence capabilities to include multi-intelligence 
Global Hawks, foliage penetration, and counter-improvised explosive 
device technologies.
    AFRICOM receives only about 7 percent of its total intelligence, 
surveillance, and reconnaissance requirements. However, in response to 
the recent attack in North Africa, AFRICOM is currently getting about 
50 percent of its stated need for intelligence, surveillance, and 
reconnaissance in North Africa. AFRICOM's intelligence, surveillance, 
and reconnaissance requirements are supported by the Air Force, the 
Navy, and the National Intelligence Community. The Services provide 
AFRICOM with a wide variety of intelligence capability. Predator, 
Pilatus fixed wing aircraft, and Scan Eagle provide full motion video. 
EP-3 Orion and other maritime assets provide signals intelligence. 
Seaborne assets provide tactical intelligence capability as well as a 
forward staging area for MQ-8 unmanned helicopter, and Scan Eagle. 
Joint Surveillance and Target Attack aircraft provide ground moving 
target indicator capability. Global Hawk provides long-dwell, long-
range imagery.
    While AFRICOM is allocated a wide variety of intelligence, 
surveillance, and reconnaissance, current allocation does not provide 
sufficient quantity or sensor mix to achieve the objectives which the 
Joint Staff directed to AFRICOM.
    Question. Do you believe the threat emanating from AFRICOM's AOR 
should garner additional resources from within DOD? If so, how do you 
intend to advocate for additional ISR assets?
    Answer. Yes, I believe additional intelligence, surveillance, and 
reconnaissance capabilities are necessary to protect American interest 
and assist our close allies and partners. The recent crises in North 
Africa demonstrate the volatility of the African security environment. 
As the United States makes significant progress against al Qaeda on 
many fronts, huge pockets of ungoverned spaces and unstable security 
situations have provided a safe haven for al Qaeda, its allies and 
affiliates. Al Qaeda has taken advantage of the poor security situation 
in Libya, easy access to weapons, and the rebellion in Mali to 
establish deep roots throughout North and West Africa. While 
significant progress has been made in Somalia, an increasingly 
desperate al Shabaab has turned to improvised explosive device attacks 
against our African partners. Additionally, Boco Haram carried out 
hundreds of improvised explosive device attacks in Nigeria. Finally, 
kidnapping for ransom continues to be a significant concern in Somalia 
and Mali.
    If confirmed, I will request additional assets through the global 
force management process to take advantage of ISR resources as we draw 
down in Afghanistan. Until Global Force Management allocation meets 
requirements, I will continue to leverage contract and experimental 
intelligence, surveillance, and reconnaissance and look to the broader 
Research and Development community for innovative solutions to unique 
AFRICOM requirements.
                combined joint task force-horn of africa
    Question. What is your understanding of the mission of Combined 
Joint Task Force-Horn of Africa (CJTF-HOA) and its command relationship 
to AFRICOM?
    Answer. CJTF-HOA is a subordinate command of AFRICOM. Its mission 
is to protect, defend, and promote the national security interests of 
the United States by conducting military operations to prevail in our 
current and future operations against violent extremist organizations 
and other transnational threats, and strengthens the capabilities of 
our East African Partner Nation militaries and regional security 
organizations in order to assist East African Nations to create 
security environments that promote security and stability within their 
country borders and throughout the region.
    Question. How do its roles and responsibilities compare with 
AFRICOM's service component commands?
    Answer. Unlike the service specific and functional commands, CJTF-
HOA is focused on a specific geographic area of operation--the East 
Africa Combined-Joint Operations Area CJTF-HOA is directed by AFRICOM 
to plan, coordinate, synchronize, direct and assess operations, 
exercises, security cooperation activities and engagements with AFRICOM 
components and Special Operations Command Africa along six lines of 
effort: Counter Violent Extremist Organizations; Strengthen Defense 
Capabilities; Prepare and Respond to Crisis; Counter-Piracy; Counter 
Illicit Trafficking; and Maintain Strategic Posture.
    Question. How does AFRICOM ensure that CJTF-HOA activities 
complement rather than conflict with activities being conducted by 
AFRICOM's service components?
    Answer. AFRICOM has published an East Africa campaign plan with 
CJTF-HOA designated as the supported command.
    Question. What are the most effective metrics to measure the impact 
of CJTF-HOA's efforts to date?
    Answer. CJTF-HOA is currently developing a formal set of assessment 
criteria to measure the impact of their efforts.
    Currently, the metrics used to measure the impact of CJTF-HOA 
effort includes the diminished effectiveness and ability of extremist 
organizations to operate in East Africa, the increased capability, 
willingness, and partnership of East African nations to eliminate 
extremist organizations, and the ability and capability of East African 
nations to respond to crisis, protecting U.S. interests in the region.
                           maritime security
    Question. Maritime security has proven to be a significant issue on 
the coasts of West and East Africa.
    What is your assessment of AFRICOM's ongoing maritime security 
initiatives?
    Answer. My understanding is AFRICOM has seen some success in 
maritime security initiatives. There have been several recent, positive 
developments in this area as a result of AFRICOM's initiatives, 
especially in the Gulf of Guinea. These initiatives are also U.S. 
interagency efforts, especially in conjunction with the Department of 
State. In particular, the command's effort to assist the Economic 
Community of Central African States and the Economic Community of West 
African States in developing a legal and operational framework for 
regional cooperation was a positive development. This assistance, 
requested by Economic Community of Central African States and Economic 
Community of West African States, will improve the ability of these 
states to meet the significant challenges of illicit maritime activity, 
including piracy, drug, arms, and human trafficking, and threats to 
energy and port security which potentially have a negative impact on 
economic development. These transnational threats directly impact the 
quality of life of the population and affect U.S. national interests. 
These regional problems are best addressed with regional solutions. If 
confirmed, I will continue to assess these programs and seek 
opportunities to build upon these positive steps with our African 
partners.
    Question. Very few African countries have the capacity to project 
naval forces beyond their coastal waters; as a result, the economic 
exclusion zones of many coastal African countries are exploited by a 
variety of international actors.
    What opportunities, if any, do you see for expanded U.S. engagement 
on maritime security in the AFRICOM AOR?
    Answer. There are many opportunities to expand AFRICOM's maritime 
engagement. AFRICOM is seeking to include more partners in these 
maritime security efforts to include the European Union and North 
Atlantic Treaty Organization nations; International Organizations such 
as the United Nations and African Union; and Regional Organizations 
such as Economic Community of Central African States and Economic 
Community of West African States. There is also an opportunity to 
expand beyond the shores of Africa to include developing closer 
coordination and cooperation on activities and events that have 
transatlantic impact from South America and the Caribbean, through 
Africa and into Europe. Illicit maritime trafficking has global reach 
and impact which can be addressed by closer cooperation between 
hemispheres (north, south, east, and west).
    This multinational approach is already happening in the Navy's 
Africa Partnership Station, AFRICOM teams with our African and other 
enduring partners to conduct training, exercises and operations like 
African Maritime Law Enforcement Partnership. For example, Naval Forces 
Africa has completed five deployments by U.S. ships along with 
deployments of ships from several European nations. My current 
understanding is that on the whole, our African partners are very 
satisfied and have requested more support.
    For the past 2 years AFRICOM, in conjunction with the Department of 
State and the African Center for Strategic Studies, has been working to 
enable countries to develop national maritime strategies that foster 
rule of law, emphasize good governance and support economic 
development. In addition several countries, such as Ghana and 
Mozambique have requested AFRICOM support to develop plans to respond 
to threats to security of offshore oil production facilities and 
transport vessels.
    These challenges present opportunities to enable African countries 
to guard their own waters and manage their valuable offshore resources. 
The freedom of commerce along the strategically important maritime 
transportation corridors is an African, United States, and global 
shared interest. If confirmed, I plan to continue the process of 
cooperation with U.S. Government agencies and international partners, 
and seek to enhance and continue the programs and activities that build 
partner maritime security capacity.
                                 china
    Question. In your view, do China and the United States share common 
security objectives in the AFRICOM AOR?
    Answer. In my opinion, China and the United States should cooperate 
on issues of mutual interest, such as counterterrorism, and on other 
projects that satisfy both countries' objectives.
    Question. In your opinion, what effect has China's engagement with 
African militaries had on those militaries and on U.S. security 
interests?
    Answer. My understanding is China offers military equipment to 
African countries at prices that each country can afford, and training 
at Chinese military schools is often completely subsidized. While in 
many cases the equipment available from China may be older and less 
technologically advanced than what other countries can offer, this 
equipment provides African militaries with more ``bang for the buck'' 
than they might be able to afford from any other source, while having 
the added perceived benefit of coming without ties, such as Western 
concern about human rights and democracy. Chinese equipment and 
training has been known to complement U.S. activities, however, for 
example by providing a baseline for militaries that move on to Africa 
Contingency Operations Training & Assistance peacekeeping training and 
participate in U.N. peacekeeping operations.
    Question. To what extent do you view China's activities on the 
continent as a threat/challenge to U.S. national security interests?
    Answer. In my opinion, we should seek to cooperate with China where 
we have mutual interests. China acts on the basis of ``non-interference 
in internal affairs,'' which means the country does not restrict its 
arms sales as a result of concerns about how the purchasing country 
behaves internationally or with respect to its own citizens. As a 
result, China does not discriminate against countries on the edge of 
instability or those with poor human rights records against their own 
people. However, China is not actively targeting U.S. interests, 
activities, or personnel so it is not a direct threat.
    Question. Are U.S. policies in Africa sufficient to counter China's 
influence when that is appropriate, or are there additional measures we 
should be considering? What role should AFRICOM play in this regard?
    Answer. In my opinion, current U.S. policies are sufficient to 
address the influence of China in Africa. It is important to look for 
and capitalize on areas of mutual national interest between our two 
countries. For example, solid opportunities exist for cooperation with 
counter-piracy operations in the Indian Ocean and Gulf of Guinea. 
Additionally, the Chinese conduct training and have programs that are 
similar in nature to ours, but there is very limited coordination or 
cooperation on these efforts. If and when our national interests align, 
AFRICOM should work to coordinate these efforts if possible in order to 
better develop our African partners and increase the security on the 
continent.
    Question. Do you foresee China's growing energy and resource 
demands affecting security developments in Africa?
    Answer. China gets significant energy and natural resources from 
Africa and would be reluctant to allow those levels to decline. As a 
result of China's interest in gaining international respect and 
support, it is more inclined to use diplomacy and negotiation to 
maintain this desired level of resources. In one recent example with 
Sudan and South Sudan, China attempted to mediate between the two 
countries when oil production was shut down over a dispute regarding 
past and future dispensation of oil revenues.
                          section 1208 funding
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as 
amended, gave U.S. Special Operations Command the authority to provide 
support (including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of this authority?
    Answer. Section 1208, within the context of its authority, has 
proved to be one of the most responsive and flexible tools to meet 
AFRICOM security challenges. This authority allows AFRICOM to enable 
partner nations who share the common goal of countering the violent 
extremist organizations threat in the region. AFRICOM is responsible to 
identify and engage the ``right'' partner unit which is capable and 
willing to conduct counterterrorism operations against violent 
extremist organizations threats. To do this requires close coordination 
with both the regional country teams as well as the legitimate 
government officials, both civilian and military. It is essential that 
all parties understand and agree to the common threat picture and have 
a displayed willingness to act against those threats.
    Section 1208 is not a capacity building authority. The purpose of 
the funding is to better enable those units that are legitimate 
representatives of our partner nation. In some cases, such as Libya, 
those units may be ``deputized'' militias.
    Question. Do you believe this authority has been appropriately 
utilized in Africa?
    Answer. Yes. It has been used appropriately in Africa. The 
successes in east Africa, specifically the visible improvements made 
against al Shabaab in Somalia, is a reflection of using this line of 
funding. All activities were conducted with complete transparency and 
in full coordination with our Interagency Partners in the region. 
Additional details require a higher classification.
    However, there is room to expand this authority to achieve focused 
effects against the threat. As Special Operations Command continues to 
resource and enable the Theater Special Operations Command and those 
enhanced capabilities come available, expansion of the 1208 authority 
against al Qaeda will provide opportunistic, disciplined, small 
footprint, high-impact special operations forces the ability to 
maximize the use of this authority.
    Question. If confirmed, how would you seek to have this authority 
used in Africa?
    Answer. I will continue to identify those partner nations who are 
actively pursuing operations to counter the violent extremist 
organizations threat stream in Northwest Africa. The countries of 
Libya, Niger, and Mauritania are actively countering the threat stream 
emanating out of northern Mali. Ideally, AFRICOM would partner with 
those units who are actively conducting counterterrorism/counterviolent 
extremist organizations operations to better enable their efforts.
    Within the capabilities of the Theater Special Operations Command, 
I would seek to expand the use of the 1208 authority by continuing to 
develop and socialize concepts of operation focused on isolating and 
degrading the threat network across the continent to achieve U.S. 
counterterrorism objectives.
                      africa health related issues
    Question. Health issues are a significant concern in many African 
nations and in their militaries and the U.S. Government's engagement 
strategy in Africa includes an emphasis on health-related issues.
    To what extent should AFRICOM be involved in broader U.S. 
Government ``health diplomacy'' efforts in Africa?
    Answer. First, AFRICOM should continue to synchronize Department of 
Defense health engagement on the continent to achieve optimum results. 
Simultaneously, AFRICOM should coordinate its health engagement with 
other parts of the U.S. Government to ensure maximum impact.
    AFRICOM is already doing that in a number of areas. Programs like 
the Partner Military Human Immunodeficiency Virus Infection/Acquired 
Immunodeficiency Syndrome Prevention Program and our Pandemic Response 
Program are good examples. Partner Military Human Immunodeficiency 
Virus Infection/Acquired Immunodeficiency Syndrome Prevention Program, 
implemented by the Department of Defense Human Immunodeficiency Virus 
Infection/Acquired Immunodeficiency Syndrome Prevention Program's 
office is primarily funded by the President's Emergency Plan for 
Acquired Immunodeficiency Syndrome Relief and executed in collaboration 
with agencies like Department of State, U.S. Agency for International 
Development, Department of Health and Human Services, Department of 
Commerce, Department of Labor, and Peace Corps in 41 African countries.
    AFRICOM's Pandemic Response Program, currently being implemented in 
17 African countries, was funded by the U.S. Agency for International 
Development from 2008 to 2012. The program is now funded by Department 
of Defense but is still implemented in collaboration with Department of 
State, U.S. Agency for International Development and Center for Disease 
Control. Similarly, the AFRICOM's malaria initiative with partner 
militaries in East Africa (and soon in West Africa) is coordinated with 
the President's Malaria Initiative in target countries (same partners 
as above). Additionally, the Defense Threat Reduction Agency's bio 
surveillance program, working with AFRICOM, is coordinating with U.S. 
Department of Agriculture, Department of State, and U.S. Agency for 
International Development.
    Question. In your view, should AFRICOM's engagement strategy, 
perhaps more than other combatant command engagement strategies, 
include an emphasis on military health engagement?
    Answer. Comparisons across combatant command geographical areas of 
operation are difficult due to the number of cultures and economies 
being engaged. But, the conditions of many partner nation militaries in 
Africa are such that without improved health intervention (improved 
nutrition, better disease prevention, care and treatment) these 
militaries will be less able to deploy in their own countries, much 
less in peacekeeping operations. As a result, AFRICOM has included 
health and medical engagement in our strategies with many partners in 
Africa.
    Question. How much success has DOD had in efforts to support 
prevention and treatment of HIV/AIDS in African militaries?
    Answer. Africa Command's military Human Immunodeficiency Virus 
Infection/Acquired Immunodeficiency Syndrome program is aimed at 
mitigating the impacts of the disease on African military readiness. 
The program includes activities that help prevent the escalation of 
Human Immunodeficiency Virus Infection/Acquired Immunodeficiency 
Syndrome infection rates within African security forces, and provide 
care and treatment for the servicemembers and families infected or 
affected by the disease. DOD activities that support African 
militaries' fight against Human Immunodeficiency Virus Infection/
Acquired Immunodeficiency Syndrome now reach 41 African countries.
    During fiscal year 2011, the command's programs reached 508,000 
African troops and family members with prevention messages, and 
provided counseling and testing services for 412,000 servicemembers and 
their families. Almost 4,000 health care workers have received Human 
Immunodeficiency Virus Infection/Acquired Immunodeficiency Syndrome 
training. Approximately 43,000 individuals are on antiretroviral 
treatment as a result of these collaborative efforts. The fight against 
Human Immunodeficiency Virus Infection/Acquired Immunodeficiency 
Syndrome in Africa is having an impact. A leader of a southern African 
country remarked that, 3 years ago, he was conducting burials every day 
for a Human Immunodeficiency Virus Infection related death; however, 
today he conducts one burial every 8 to 10 days.
    Other indicators of success include; 17,923 males were circumcised 
as part of Human Immunodeficiency Virus Infection prevention efforts; 
96,558 eligible adults and children were provided with a minimum of one 
care service; 68,237 Human Immunodeficiency Virus Infection positive 
adults and children received a minimum of one clinical service; 29,856 
HIV-positive persons received cotrimoxazole prophylaxis.
    Question. If confirmed, how, if at all, would you like to see such 
efforts increased or programmatically altered?
    Answer. If confirmed, I would assess the programs before 
recommending changes. Current programs are effective and favor greater 
efforts in Human Immunodeficiency Virus Infection prevention and 
treatment.
    Question. In your view, what should DOD's role be in the program 
relative to other elements of the U.S. Government?
    Answer. Health and Humanitarian Assistance efforts require a 
``whole-of-government'' approach. Department of Defense and its 
organizations bring a wide range of capabilities to the table and when 
properly coordinated the U.S. Government efforts are greatly enhanced 
without expense to national security. It is important that the balance 
be maintained. In AFRICOM's case these efforts provide it with 
additional access to partner nations and enhance positive perceptions 
of our military.
           sexual assault prevention and response in africom
    Question. The Department of Defense has developed comprehensive 
policies and procedures to improve the prevention and response to 
incidents of sexual assault. However, new allegations of sexual assault 
continue to be reported, and many question the adequacy of the chain of 
command's response to these allegations.
    Answer. A frequent complaint of victims of sexual assault and their 
advocates is that military commanders frequently fail to hold 
assailants accountable for their criminal acts. Some in Congress have 
proposed that commanders' authority to address sexual assaults be 
removed and given to an independent entity.
    Question. What is your view of the Sexual Assault Prevention and 
Response Program in AFRICOM?
    Answer. It is my understanding that the program is effective in 
AFRICOM. The program addresses the needs of the combatant command staff 
by providing trained, in-house Victim Advocates that work hand-in-hand 
with the garrison Sexual Harassment/Assault Response & Prevention 
coordinator. The Stuttgart garrison support agencies provide training, 
guidance and support the Victim Advocates efforts and directly address 
the needs of victims. Supporting agencies also include Family Advocacy, 
the Provost Marshalls Office, Army Criminal Investigation Division, 
medical personnel, and others as required to ensure program compliance 
and the needs of the victim are met.
    Question. What is your view of the adequacy of the training and 
resources in AFRICOM to investigate and respond to allegations of 
sexual assault?
    Answer. Although the command's primary support is garrison based, 
all indications are the training and resources are adequate to respond 
appropriately to allegations of sexual assault.
    Question. What is your view of the proposal to give the authority 
to an independent agency, not part of the chain of command, to address 
allegations of sexual assault, including the authority to hold 
assailants accountable for criminal acts?
    Answer. The Services recently changed the level of commander with 
Uniform Code of Military Justice authority over these types of cases 
and this change should be assessed before making further changes.
    Giving authority to an independent agency could undermine command 
authority by sending the message the commander cannot be trusted to 
make a fair and impartial assessment.
    Question. What is your understanding of the adequacy of the 
resources and programs in place in AFRICOM to offer victims of sexual 
assault the medical, psychological, and legal help that they need?
    Answer. U.S. Army Garrison Stuttgart is the lead agent to provide 
these services to the staff and they have the core functions in place 
to support AFRICOM members. They have shown a sincere spirit of teaming 
with the command to take care of our personnel.
    Question. Do you consider the current sexual assault policies and 
procedures, particularly those on confidential reporting, to be 
effective?
    Answer. Yes. The policies and procedures seem effective. 
Confidential reporting provides an option for those who wish to seek 
assistance while maintaining confidentiality.
    Question. What is your view of steps taken to prevent sexual 
assaults in AFRICOM?
    Answer. AFRICOM works in synchronization with the victim advocates. 
Training is highlighted and conducted by senior leaders in small groups 
to discuss troops' responsibility to stop activities that lead to 
heightened possibility of sexual assaults. Additionally, the garrison 
is examining the infrastructure and facilities to identify mitigation 
measures in the barracks and other areas.
                 quality-of-life challenges in africom
    Question. What quality-of-life challenges are unique for personnel 
and their families assigned to the AFRICOM area of responsibility?
    Answer. The lack of reliable infrastructure on the African 
continent presents unique quality-of-life challenges for our personnel 
and their families. Among these challenges are unreliable broadband 
internet, sporadic postal service access, shortages of essential goods, 
varying degrees of host nation medical care and schooling capabilities. 
There is a relatively small AFRICOM personnel footprint in our African 
embassies--of the 36 staffed, there are fewer than 200 personnel in 
both accompanied and unaccompanied tours.
    Additionally, there are approximately 5,000 unaccompanied personnel 
on the continent at any given time, and the command conducts a variety 
of outreach and educational activities such as travel clinics to impart 
proper respect for, and adherence to, the unique medical and safety 
requirements of our area of responsibility.
    Question. If confirmed, how would you address these theater-wide 
challenges to help improve the quality of life for these personnel and 
their families?
    Answer. The Command invests in productive partnerships with Service 
components and supporting nongovernmental agencies. Army morale, 
welfare, and recreation activities are proactive--providing large 
mobile support kits containing exercise and recreation equipment, 
games, lounge items, and electronic equipment to support our 
servicemembers. As always, AFRICOM also receives superb support from 
the Red Cross, the United Services Organization, and other 
organizations with the mission of supporting America's uniform 
personnel. I will continue to invest in, and encourage these 
relationships. For school issues, we work closely with the Department 
of Defense Education Activity to ensure military dependents get quality 
education on the continent. U.S. Transportation Command facilitates 
medical evacuation service capability for military personnel and their 
families on the continent.
        mental health of servicemembers and stress on the force
    Question. The committee is concerned about the stress on military 
personnel resulting from lengthy and repeated deployments and their 
access to mental health care to deal with this increased stress. The 
suicide rates in each of the Services are clear reminders that 
servicemembers, particularly those who have been deployed multiple 
times, are under tremendous stress and need access to mental health 
care.
    In your view, are there sufficient mental health assets in AFRICOM 
to address the mental health needs of the military personnel and their 
families?
    Answer. Yes. I believe there are adequate Mental Health resources 
in the Stuttgart Army Garrison Community to appropriately address the 
needs of the headquarters staff and their family members. For example, 
AFRICOM is particularly pleased with the response to Department of 
Defense Military and Family Life Consultant Program. Through the 
Military and Family Life Consultant Program, licensed clinical 
providers assist servicemembers, civilians, and their families by 
providing brief, solution-focused problem solving support. They work in 
support of and in conjunction with existing military entities/services. 
There are no records kept and contact with Military and Family Life 
Consultant Program is anonymous with the exceptions of allegations made 
of harm to self, others, allegations of domestic abuse, sexual assault 
and child abuse. The role of the consultant is unique--they are not 
traditional therapists. The primary Military and Family Life Consultant 
Program role is to assess needs, provide support, or refer as 
necessary. Among the service they provide is assistance to 
servicemembers, civilians, and families with development of an action 
plans. For example, in Djibouti, usage statistics indicate eight 
contacts are made on an average day, and the program there will gain a 
second consultant to serve that population. The command is also pleased 
with the services provided by our local Army health care providers and 
the medical services in the local community, as well as Military 
OneSource.
    Question. If confirmed, what actions will you take to address the 
mental health needs of military personnel and their families in 
AFRICOM?
    Answer. If confirmed, I will continue to place an emphasis in 
ensuring that behavioral health services are available to our 
servicemembers and their families. I recognize that we must foster a 
culture that facilitates an awareness of the impact of behavioral 
health issues on individual servicemembers, families, units, and our 
military communities.
    This awareness starts from the top leadership and extends down to 
each individual assigned to the command. I will continue to engage to 
ensure we maintain an interdisciplinary approach to addressing the 
behavioral health needs of the force. This includes increasing the 
effectiveness of health surveillance, detection, and response efforts 
to identify, refer, and treat servicemembers and families at risk; 
reducing cultural stigma associated with seeking behavioral healthcare 
and developing resiliency and coping skills that foster help-seeking 
behavior among our servicemembers and their families.
    I will leverage policies and programs that assist servicemembers 
suffering from physical and behavioral health conditions. The starting 
point at every level is education and training. I will also empower all 
soldiers, sailors, marines, airmen, and civilian personnel to act as 
sensors for leadership by noticing small changes in behavior and taking 
action early. These efforts encourage unit strength, resilience, and 
readiness. I will encourage that service and family members seek mental 
health assistance when needed.
    Question. Do you have any views on how to reduce the stigma, real 
or perceived, for seeking mental health care?
    Answer. We have taken conscious steps to adjust policy to reduce 
stigma by facilitating culture change within our force through 
continued education and by continuing to enhance the support network 
for servicemembers who may be at risk. I will continue to emphasize the 
importance of assessing the need for behavioral health services at key 
transition points to include redeployment, reintegration, and 
servicemembers to civilian transition. I will also continue to 
emphasize the need for behavioral health screening during routine 
periodic health and wellness exams. I will encourage social support and 
awareness of behavioral health programs which, through buddy or peer-
to-peer involvement, has been successful in increasing behavioral 
health treatment-seeking among veterans. Additionally, increased social 
support may also lead to stigma reduction.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, AFRICOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
                             sexual assault
    1. Senator McCaskill. General Rodriguez, it is my understanding 
that the movie ``The Invisible War'' is being used to help educate 
senior leaders in the U.S. Armed Forces about the issue of sexual 
assault in the military. Have you seen the movie?
    General Rodriguez. Yes, I have seen ``The Invisible War''.

    2. Senator McCaskill. General Rodriguez, as a leader in the U.S. 
Army, what have you learned about the issue of sexual assault facing 
servicemembers under your command?
    General Rodriguez. Sexual assault is contrary to Army values, 
degrades mission readiness, and will be prosecuted. With continued 
leadership and chain of command involvement, the Army can reduce the 
incidents of sexual assault and provide the training and guidance to 
prevent these incidents from occurring, prosecute those responsible for 
sexual assault, and provide the best support to the victims.
    The Army Sexual Harassment and Assault Reporting Program is 
effective in addressing the needs of the Army by providing trained, in-
house Victim Advocates that work hand-in-hand with the garrison Sexual 
Harassment/Assault Response and Prevention coordinator. The garrison 
command support agencies on Army installations provide training, 
guidance and support the Victim Advocates efforts and directly address 
the needs of victims. Supporting agencies also include Family Advocacy, 
the Provost Marshalls Office, Army Criminal Investigation Division, 
medical personnel, and others as required to ensure program compliance 
and the needs of the victim are met.

                       building security capacity
    3. Senator McCaskill. General Rodriguez, one of U.S. Africa 
Command's (AFRICOM) central missions is to strengthen the defense 
capabilities of African states. In January 2013, an International 
Security Advisory Board report on ``Security Capacity Building'' found 
that the United States annually spends more than $25 billion on what is 
broadly classified as security capacity of the recipient states. The 
report found that we have a multiplicity of programs spread across 
different departments and agencies where there may or may not be 
coordination in resourcing and execution. A lack of coordination could 
easily lead to duplication of effort and waste of resources that would 
be better spent elsewhere. As the combatant commander, what would you 
do to coordinate efforts with our diplomatic missions and other Federal 
agencies to ensure duplication is not occurring?
    General Rodriguez. Cross agency communication is key and may 
identify duplication of programs. Communication between agencies can be 
difficult at times, but it is a challenge that is solvable by 
understanding the cultures of the different U.S. agencies and by 
demonstrating our willingness to share relevant information between the 
African Union and other entities with equities on the continent. Being 
a good steward of resources, particularly in our fiscally uncertain 
environment, is essential. To accomplish this goal requires close 
coordination and that will be one of my priorities as Commander, 
AFRICOM.

    4. Senator McCaskill. General Rodriguez, in your response to the 
advance policy questions, you said: ``AFRICOM's responsibilities 
reflect a new and evolving focus on building partner operational and 
institutional capacity at the country and regional levels and 
supporting the efforts of other U.S. Government agencies in the area of 
responsibility (AOR).'' While many at the Department of State (DOS) and 
U.S. Agency for International Development (USAID) welcome the ability 
of DOD to leverage resources and to organize complex operations, there 
also is concern that the military may overestimate its capabilities as 
well as its diplomatic role, or pursue activities that are not a core 
part of its mandate. The highly unequal allocation of resources between 
DOD, DOS, and USAID could hinder their ability to act as equal partners 
and could lead to the militarization of development and diplomacy. Do 
you believe there is a danger in over-emphasizing the U.S. military 
presence in Africa?
    General Rodriguez. Since inception of AFRICOM in October 2008, all 
agencies of the U.S. Government have remained sensitive to this concern 
and have operated with a light footprint on the continent. Regarding 
Department of Defense (DOD) operations with other U.S. Government 
agencies, I believe DOD and the AFRICOM component commands must 
thoroughly understand the culture of those agencies--particularly DOS 
and USAID--and employ that understanding during planning sessions and 
during execution of programs and theater security cooperation events. 
It is very important not to militarize development activity or 
diplomacy.

    5. Senator McCaskill. General Rodriguez, how will you balance our 
military presence in Africa with the diplomatic and development 
responsibilities of DOS and USAID?
    General Rodriguez. The U.S. Ambassadors are the lead for U.S. 
diplomatic, informational, military, and economic development in each 
African nation. AFRICOM fully supports the Ambassadors and DOS to 
ensure a balanced and synchronized effort between diplomatic, 
development, and military presence in African nations. It is imperative 
that we work together as a whole-of-government team as we engage 
African nations. Messaging to the governments and people of the 
continent will continue to emphasize our support to African nations. 
Traditional U.S. military engagement strategy has been grounded in 
threat-based analysis. To meet its growing responsibilities in the even 
more complex African context, the Command will compliment this 
traditional analytic framework with a partnership-based approach. To do 
this, we should use our military capabilities in a supporting role with 
the interagency team to find ways to help our partners build resilient, 
democratic security institutions.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III
                                  mali
    6. Senator Manchin. General Rodriguez, the AFRICOM AOR has become a 
front line in the fight against al Qaeda and other terrorist groups. I 
am particularly concerned the emergence of al Qaeda in the Islamic 
Maghreb (AQIM) in Mali. French and Malian forces have made great 
strides over the past month in driving AQIM out of areas they held in 
northern Mali, but the French have announced they are leaving soon. How 
can the United States best support preserving these gains without 
investing troops or considerable resources?
    General Rodriguez. The most effective way to preserve the gains in 
Mali is through a strong, functional Mali Government. We should 
continue to support African nations, the Africa Union, African regional 
organizations, the European Union, and the United Nations where we have 
common objectives. Building the capacity and supporting these 
organizations provide African and international solutions to Africa's 
problems.

                              south sudan
    7. Senator Manchin. General Rodriguez, South Sudan is the world's 
newest country and faces a number of internal and external security 
challenges. Can you describe the status of our military-to-military 
relationship with South Sudan?
    General Rodriguez. The U.S. Ambassador to South Sudan has called 
for a limited introduction of our Security Force Assistance (SFA) 
program pending improvement in certain issue areas, including: (1) 
concern over the government of South Sudan's progress on advancing 
democratic principles; (2) concern about the Government of South 
Sudan's ability to absorb our assistance while key border security 
issues remain unresolved with the north; and, (3) Embassy Juba's 
limited capacity to support U.S. servicemembers in the austere Juba 
environment.
    Our military-to-military relationship with the Sudan People's 
Liberation Army (SPLA) is in the initial stage. Through effective use 
of the International Military Education and Training (IMET) Program, 
dozens of SPLA students have attended DOD schools in the United States 
ranging from infantry officer basic training to engineer, medical, and 
judge advocate general courses. An SPLA brigadier general is scheduled 
to attend the U.S. Army War College this year. These alumni will form 
the basis of our engagement activities within the framework of our 
comprehensive Security Force Assistance (SFA) Program. This SFA Program 
emphasizes development of the defense sector at the institutional level 
for enduring effects. Additionally, AFRICOM is planning to conduct 
limited medical and engineering civic action projects in the next few 
months with the SPLA.

    8. Senator Manchin. General Rodriguez, as this relationship 
evolves, how you will ensure that human rights are an important part of 
any military-to-military engagement with South Sudan?
    General Rodriguez. Human rights related content--including the rule 
of law, civilian control of the military, and code of conduct--are key 
ingredients infused into every engagement with the Sudan People's 
Liberation Army. Our Security Force Assistance (SFA) Program includes a 
priority package of education and mentorship aimed at assisting in the 
development of defense sector institutions that will establish, foster, 
and enforce laws, codes, and principles related to discipline of the 
force, hierarchy of command, and rules of engagement. Our SFA package 
also includes ways and means to professionalize and establish 
capability and capacity of key functions within the military such as a 
judge advocate general corps, military police and inspector general.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                       u.s. africa command goals
    9. Senator Shaheen. General Rodriguez, Dr. Cynthia Watson, a 
professor at the National War College, stated, ``Africa Command hopes 
to avoid that traditional combatant command goals of warfighting in 
favor of war prevention, making its orientation quite different from 
other parallel organizations.'' Do you agree with this assessment?
    General Rodriguez. I believe prevention of war is the foremost goal 
of all combatant commands. The strategic environment will dictate the 
amount of emphasis placed on war prevention versus warfighting. AFRICOM 
protects and defends the national security interests of the United 
States by strengthening the defense capabilities of African states and 
regional organizations and, when directed, conducts military 
operations, in order to deter and defeat transnational threats and to 
provide a security environment conducive to good governance and 
development. We need to be ready to do both.

    10. Senator Shaheen. General Rodriguez, do you think that this 
mission focus prohibited AFRICOM from being able to respond to the 
Benghazi incident?
    General Rodriguez. There are a number of lessons learned from 
Benghazi that must be considered. We should continue to conduct close 
coordination with DOS and our other interagency partners on the African 
continent to ensure a common understanding of the risk associated with 
the complex threat environment such as that in Libya. We should 
continue to work as a team to refine intelligence, reduce the 
intelligence gap through better collaboration, prioritizing threats, 
and allocating resources to collect on those threats.
    Also, we should review the interagency process between the DOD and 
DOS to identify security risks and understand DOD response options to 
inform DOS security planning and decisionmaking. Regional response 
forces like the Commanders In-extremis Force, Army Regionally Aligned 
Forces, and the Special Marines Air-Ground Task Force are also part of 
the solution in some areas.
    I understand AFRICOM is reviewing security assistance and military-
to-military programs to ensure they are best tailored to build host 
nation capacity where required. Collaborative efforts to improve 
Embassy security are ongoing.

    11. Senator Shaheen. General Rodriguez, do you think that AFRICOM's 
emphasis on building partnerships will shift as the emerging terrorist 
threat increases?
    General Rodriguez. Traditional U.S. military engagement strategy 
has been grounded in threat-based analysis. To meet its growing 
responsibilities in the increasingly complex African context, AFRICOM 
will compliment this traditional analytic framework with a partnership-
based approach. To do this, we will use our military capabilities in a 
supporting role with our interagency team to find ways to help our 
partners build resilient security institutions that are committed to 
democratic ideals.

       intelligence, surveillance, and reconnaissance capability
    12. Senator Shaheen. General Rodriguez, the current AFRICOM 
Commander has previously testified that intelligence and surveillance 
continue to be a challenge and that more assets are needed. If 
confirmed, what do you intend to do to ensure that AFRICOM has the 
appropriate intelligence, surveillance, and reconnaissance (ISR) 
capability?
    General Rodriguez. I will advocate for prioritization of AFRICOM 
ISR requirements to support current operations and likely future 
mission areas. With potential for receiving additional ISR assets, I 
will engage African partner nations for over-flight, refueling and 
temporary operating location options. It is also important to invest in 
enhancing African nations ISR capabilities as well as information and 
intelligence sharing to improve overall understanding of the 
environment.
                                 ______
                                 
            Question Submitted by Senator Richard Blumenthal
                  marine corps in u.s. africa command
    13. Senator Blumenthal. General Rodriguez, last week we heard from 
General Dempsey of the challenges posed by improving our response 
capabilities in Africa, where there are limited base rights and access. 
It is my understanding that the United States no longer maintains an 
amphibious ready group in the Mediterranean Sea, and this is before 
sequestration. If confirmed, will you look at making better use of the 
Marine Corps' ability to respond to crises in North Africa, conduct 
noncombatant evacuations, and maintain a rapid response capability with 
forward deployed forces?
    General Rodriguez. I will continue to refine the posture of our 
U.S. Marine Corps Special Purpose Marine Air and Ground Task Force and 
other Marine assets as required to respond to crises in North Africa, 
conduct non-combatant evacuations, and maintain a rapid response 
capability with forward deployed forces. I would add that it is 
important for any combatant commander to consider the full range of 
Department of Defense and other agency capabilities available for 
operational support missions.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                     surveillance in africa command
    14. Senator Chambliss. General Rodriguez, AFRICOM receives only 
about 7 percent of its total ISR requirements. However, in response to 
the recent attack in North Africa, AFRICOM is currently getting about 
50 percent of its stated need for ISR in North Africa. With the 
downsizing of military forces and assets, AFRICOM is sure to not get 
this percentage of ISR in the future. How will you, as a commander, 
ensure that AFRICOM will accomplish its mission without a robust ISR 
capability in the near future?
    General Rodriguez. I will evaluate current operational 
requirements, along with possible risk, and prioritize remaining ISR 
capabilities to optimize support to mission execution. In addition, 
with the downsizing of military forces and assets we can expect a 
reprioritization of ISR assets by the U.S. Government and I will work 
to ensure that AFRICOM's requirements are addressed by Department of 
Defense and the U.S. Intelligence Community. It is also important to 
invest in enhancing African nations ISR capabilities as well as 
information and intelligence sharing to improve overall understanding 
of the environment.

    15. Senator Chambliss. General Rodriguez, with so much territory 
uncovered with ISR, what other actions will you take to ensure a 
presence throughout the region?
    General Rodriguez. I will pursue additional presence and 
optimization of current presence across the continent by engaging 
African partner nations for key temporary stationing locations that 
provide increased flexibility for ISR asset tasking, maximizing 
potential support to missions. It is also important to invest in 
enhancing African nations ISR capabilities as well as information and 
intelligence sharing to improve overall understanding of the 
environment.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                     surveillance in africa command
    16. Senator Ayotte. General Rodriguez, in your advance policy 
questions, you mentioned that AFRICOM only received about 7 percent of 
its total ISR requirements. That number has increased to 50 percent 
now. Based on all of the previous attacks on U.S. and other western 
targets in Benghazi in the months preceding the September 11, 2012, 
attack that left four Americans dead, do you believe more than 7 
percent of AFRICOM's ISR requirements should have been met?
    General Rodriguez. I believe the ISR requirements for Africa are 
high and increasing at a very fast rate. I will ensure AFRICOM's 
requirements compete for ISR assets with the other combatant commands. 
ISR assets are low density, high demand capabilities, and are allocated 
based on national priorities.

    17. Senator Ayotte. General Rodriguez, while the increase for 50 
percent is a positive step, do you have concerns that half of our ISR 
requirements are not being met?
    General Rodriguez. The demand for ISR capabilities has increased 
significantly over the past decade. It is rare that ISR supply meets 
the demand. Thus, I will continue to address AFRICOM's requirements for 
ISR capabilities through the Joint Staff's request for forces and 
capabilities system and prioritize the employment of ISR assets AFRICOM 
receives. It is also important to invest in enhancing African nations 
ISR capabilities as well as information and intelligence sharing to 
improve overall understanding of the environment.

    18. Senator Ayotte. General Rodriguez, do you believe that DOD is 
providing AFRICOM sufficient ISR assets to meet the objectives that the 
Joint Staff has given AFRICOM?
    General Rodriguez. AFRICOM must compete with other combatant 
commands for America's relatively scarce ISR assets. While not unique 
to AFRICOM, infrastructure for supporting ISR operations and over-
flight rights of African nations are also considerations. Upon assuming 
command of AFRICOM, I will closely review AFRICOM's ISR requirements 
and shortfalls in order to prioritize employment and mitigate risk as 
best we can.

                               boco haram
    19. Senator Ayotte. General Rodriguez, do you believe Boco Haram is 
a terrorist organization?
    General Rodriguez. Boco Haram has committed some acts that can be 
associated with terrorism. Designating Boco Haram as a terrorist 
organization is a policy decision. I will study this issue and make my 
recommendation on whether Boco Haram should be classified as a 
terrorist organization.
                                 ______
                                 
    [The nomination reference of GEN David M. Rodriguez, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 7, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    GEN David M. Rodriguez, 0000.
                                 ______
                                 
    [The biographical sketch of GEN David M. Rodriguez, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
           Biographical Sketch of GEN David M. Rodriguez, USA
Source of commissioned service: USMA.

Educational degrees:
    U.S. Military Academy - BS - No Major
    U.S. Army Command and General Staff College - MMAS - Military Art 
and Science
    U.S. Naval War College - MA - National Security and Strategic 
Studies

Military schools attended:
    Infantry Officer Basic Course
    Armor Officer Advanced Course
    U.S. Army Command and General Staff College
    School of Advanced Military Studies
    U.S. Naval War College

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                Promotions                       Date of Appointment
------------------------------------------------------------------------
2LT.......................................  2 Jun. 76
1LT.......................................  2 Jun. 78
CPT.......................................  1 Aug. 80
MAJ.......................................  1 Sep. 87
LTC.......................................  1 Apr. 93
COL.......................................  1 Aug. 97
BG........................................  1 Mar. 02
MG........................................  15 Jul. 05
LTG.......................................  29 Jul. 08
GEN.......................................  15 Aug. 11
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Aug. 11.........................  Present...........  Commanding
                                                       General, U.S.
                                                       Army Forces
                                                       Command, Fort
                                                       Bragg, NC
Mar. 10.........................  Jul. 11...........  Commander,
                                                       International
                                                       Security
                                                       Assistance Force
                                                       Joint Command/
                                                       Deputy Commander,
                                                       U.S. Forces-
                                                       Afghanistan,
                                                       Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Oct. 09.........................  Mar. 10...........  Commander,
                                                       International
                                                       Security
                                                       Assistance Force
                                                       Joint Command,
                                                       Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Jun. 09.........................  Oct. 09...........  Deputy Commander,
                                                       U.S. Forces-
                                                       Afghanistan,
                                                       Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Jul. 08.........................  Jun. 09...........  Senior Military
                                                       Assistant to the
                                                       Secretary of
                                                       Defense, Office
                                                       of the Secretary
                                                       of Defense,
                                                       Washington, DC
Apr. 08.........................  Jul. 08...........  Commanding
                                                       General, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Feb. 07.........................  Apr. 08...........  Commanding
                                                       General, 82d
                                                       Airborne Division/
                                                       Commanding
                                                       General, Combined
                                                       Joint Task Force-
                                                       76, Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Apr. 06.........................  Feb. 07...........  Commanding
                                                       General, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Jan. 06.........................  Feb. 06...........  Special Assistant
                                                       to the Commander,
                                                       Multi-National
                                                       Corps-Iraq,
                                                       Operation Iraqi
                                                       Freedom, Iraq (No
                                                       Joint Credit)
Apr. 05.........................  Jan. 06...........  Commander, Multi-
                                                       National Division-
                                                       Northwest,
                                                       Operation Iraqi
                                                       Freedom, Iraq
Jun. 03.........................  Mar. 05...........  Deputy Director,
                                                       Regional
                                                       Operations, J-3,
                                                       Joint Staff,
                                                       Washington, DC
Jun. 02.........................  Jun. 03...........  Assistant Division
                                                       Commander
                                                       (Maneuver), 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Hood, TX,
                                                       and Operation
                                                       Iraqi Freedom,
                                                       Iraq
Oct. 00.........................  Jun. 02...........  Deputy Commanding
                                                       General/Assistant
                                                       Commandant, U.S.
                                                       Army Infantry
                                                       Center and
                                                       School, Fort
                                                       Benning, GA
Jul. 99.........................  Sep. 00...........  Assistant Chief of
                                                       Staff, G-3, XVIII
                                                       Airborne Corps,
                                                       Fort Bragg, NC
Aug. 97.........................  Jul. 99...........  Commander, 2d
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Jul. 96.........................  Jun. 97...........  Student, U.S.
                                                       Naval War
                                                       College, Newport,
                                                       RI
Apr. 94.........................  Apr. 96...........  Commander, 2d
                                                       Battalion, 502d
                                                       Infantry
                                                       Regiment, lOlst
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell, KY
Mar. 92.........................  Feb. 94...........  Joint Exercise
                                                       Officer, later
                                                       Executive
                                                       Officer, Exercise
                                                       Division, C-3/J-3/
                                                       G-3, United
                                                       Nations Command/
                                                       Combined Forces
                                                       Command/U.S.
                                                       Forces-Korea,
                                                       Korea
Apr. 90.........................  Mar. 92...........  S-3 (Operations),
                                                       later Executive
                                                       Officer, 1st
                                                       Battalion, 505th
                                                       Parachute
                                                       Infantry
                                                       Regiment, Fort
                                                       Bragg, NC, and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia
Jun. 89.........................  Apr. 90...........  Chief, Doctrine
                                                       Development, G-3
                                                       (Plans), XVIII
                                                       Airborne Corps,
                                                       Fort Bragg, NC
Aug. 87.........................  May 89............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
Jul. 86.........................  Jun. 87...........  Commander, B
                                                       Company, 3d
                                                       Battalion, 75th
                                                       Ranger Regiment,
                                                       Fort Benning, GA
Aug. 85.........................  Jun. 86...........  Liaison Officer,
                                                       3d Battalion,
                                                       75th Ranger
                                                       Regiment, Fort
                                                       Benning, GA
Jul. 84.........................  Aug. 85...........  Assistant S-3
                                                       (Operations),
                                                       75th Ranger
                                                       Regiment, Fort
                                                       Benning, GA
Jun. 83.........................  Apr. 84...........  S-3 (Operations),
                                                       1st Battalion,
                                                       52d Infantry, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Feb. 83.........................  Jun. 83...........  Assistant S-3
                                                       (Air), 3d
                                                       Brigade, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Jul. 81.........................  Feb. 83...........  Commander, B
                                                       Company, 1st
                                                       Battalion, 52d
                                                       Infantry, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
May 80..........................  Dec. 80...........  Student, Armor
                                                       Officer Advanced
                                                       Course, U.S. Army
                                                       Armor School,
                                                       Fort Knox, KY
Jun. 79.........................  May 80............  Executive Officer,
                                                       Combat Support
                                                       Company, 1st
                                                       Battalion, 61st
                                                       Infantry, 5th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Polk, LA
Jan. 79.........................  Jun. 79...........  Motor Officer, 1st
                                                       Battalion, 61st
                                                       Infantry, 5th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Polk, LA
Jun. 78.........................  Jan. 79...........  Scout Platoon
                                                       Leader, Combat
                                                       Support Company,
                                                       1st Battalion,
                                                       61st Infantry,
                                                       5th Infantry
                                                       Division
                                                       (Mechanized),
                                                       Fort Polk, LA
Jul. 77.........................  Jun. 78...........  Rifle Platoon
                                                       Leader, A
                                                       Company, 1st
                                                       Battalion, 6lst
                                                       Infantry, 5th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Polk, LA
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
           Assignments                   Date                Grade
------------------------------------------------------------------------
Commander, International            Mar. 10-Jul. 11   Lieutenant General
 Security Assistance Force Joint
 Command/Deputy Commander, U.S.
 Forces-Afghanistan, Operation
 Enduring Freedom, Afghanistan..
Commander, International            Oct. 09-Mar. 10   Lieutenant General
 Security Assistance Force Joint
 Command, Operation Enduring
 Freedom, Afghanistan...........
Deputy Commander, U.S. Forces-      Jun. 09-Oct. 09   Lieutenant General
 Afghanistan, Operation Enduring
 Freedom, Afghanistan...........
Senior Military Assistant to the    Jul. 08-Jun. 09   Lieutenant General
 Secretary of Defense, Office of
 the Secretary of Defense,
 Washington, DC.................
Commanding General, 82d Airborne    Feb. 07-Apr. 08       Major General
 Division/Commanding General,
 Combined Joint Task Force-76,
 Operation Enduring Freedom,
 Afghanistan....................
Commander, Multi-National           Apr. 05-Jan. 06       Major General
 Division-Northwest, Operation
 Iraqi Freedom, Iraq (No Joint
 Credit)........................
Deputy Director, Regional           Jun. 03-Mar. 05   Brigadier General
 Operations, J-3, Joint Staff,
 Washington, DC.................
Joint Exercise Officer, later       Mar. 92-Feb. 94    Major/Lieutenant
 Executive Officer, Exercise                                           Colonel
 Division, C-3/J-3/G-3, United
 Nations Command/Combined Forces
 Command/U.S. Forces-Korea,
 Korea..........................
------------------------------------------------------------------------

Summary of operational assignments:

------------------------------------------------------------------------
           Assignments                   Date                Grade
------------------------------------------------------------------------
Commander, International             Mar. 10-Jul 11   Lieutenant General
 Security Assistance Force Joint
 Command/Deputy Commander, U.S.
 Forces-Afghanistan, Operation
 Enduring Freedom, Afghanistan..
Commander, International            Oct. 09-Mar. 10   Lieutenant General
 Security Assistance Force Joint
 Command, Operation Enduring
 Freedom, Afghanistan...........
Deputy Commander, U.S. Forces-      Jun. 09-Oct. 09   Lieutenant General
 Afghanistan, Operation Enduring
 Freedom, Afghanistan...........
Commanding General, 82d Airborne    Feb. 07-Apr. 08       Major General
 Division/Commanding General,
 Combined Joint Task Force-76,
 Operation Enduring Freedom,
 Afghanistan....................
Special Assistant to the            Jan. 06-Feb. 06       Major General
 Commander, Multi-National Corps-
 Iraq, Operation Iraqi Freedom,
 Iraq (No Joint Credit).........
Commander, Multi-National           Apr. 05-Jan. 06       Major General
 Division-Northwest, Operation
 Iraqi Freedom, Iraq............
Assistant Division Commander        Jun. 02-Jun. 03   Brigadier General
 (Maneuver), 4th Infantry
 Division (Mechanized), Fort
 Hood, TX, and Operation Iraqi
 Freedom, Iraq..................
S-3 (Operations), later             Apr. 90-Mar. 92               Major
 Executive Officer, 1st
 Battalion, 505th Parachute
 Infantry Regiment, Fort Bragg,
 NC, and Operations Desert
 Shield/Storm, Saudi Arabia.....
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal (with Oak Leaf Cluster)
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit (with four Oak Leaf Clusters)
    Bronze Star Medal (with Oak Leaf Cluster)
    Defense Meritorious Service Medal
    Meritorious Service Medal (with four Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal (with two Oak Leaf Clusters)
    Joint Service Achievement Medal
    Combat Infantryman Badge
    Expert Infantryman Badge
    Master Parachutist Badge
    Air Assault Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by GEN David M. 
Rodriguez, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    David M. Rodriguez.

    2. Position to which nominated:
    Commander, U.S. Africa Command, Germany.

    3. Date of nomination:
    February 7, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 23, 1954; Overbrook, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Virginia E. Rodriguez; Maiden name: Flaherty.

    7. Names and ages of children:
    Amy Marie Rodriguez, age 28.
    Melissa Rose Royer, age 26.
    David Francis Rodriguez, age 23.
    Andrew Scott Rodriguez, age 21.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    12. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the U.S. Army (member).
    Veterans of Foreign Wars (member).
    82nd Airborne Association (member).

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                David M. Rodriguez.
    This 24th day of August, 2012.

    [The nomination of GEN David M. Rodriguez, USA, was 
reported to the Senate by Chairman Levin on February 26, 2013, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on March 5, 2013.]


   NOMINATIONS OF HON. ALAN F. ESTEVEZ TO BE PRINCIPAL DEPUTY UNDER 
 SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS; MR. 
    FREDERICK E. VOLLRATH TO BE ASSISTANT SECRETARY OF DEFENSE FOR 
  READINESS AND FORCE MANAGEMENT; AND MR. ERIC K. FANNING TO BE UNDER 
                       SECRETARY OF THE AIR FORCE

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Gillibrand, 
Blumenthal, Donnelly, Kaine, King, Inhofe, McCain, and Ayotte.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella E. Fahrer, counsel; Gerald J. Leeling, counsel; Peter 
K. Levine, general counsel; Jason W. Maroney, counsel; John H. 
Quirk V, professional staff member; and Robie I. Samanta Roy, 
professional staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director; Steven M. Barney, minority counsel; William S. 
Castle, minority general counsel; Ambrose R. Hock, professional 
staff member; and Anthony J. Lazarski, professional staff 
member.
    Staff assistants present: Jennifer R. Knowles, Mariah K. 
McNamara, and Lauren M. Gillis.
    Committee members' assistants present: Jeff Fatora, 
assistant to Senator Nelson; David LaPorte, assistant to 
Senator Manchin; Elana Broitman, assistant to Senator 
Gillibrand; Marta McLellan Ross, assistant to Senator Donnelly; 
Karen Courington, assistant to Senator Kaine; Jim Catella and 
Steve Smith, assistants to Senator King; Paul C. Hutton IV, 
assistant to Senator McCain; Todd Harmer, assistant to Senator 
Chambliss; Robert Foster, assistant to Senator Wicker; and Brad 
Bowman, assistant to Senator Ayotte.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    This morning the committee considers the nomination of Alan 
Estevez to be Principal Deputy Under Secretary of Defense for 
Acquisition, Technology, and Logistics; Frederick Vollrath to 
be Assistant Secretary of Defense for Readiness and Force 
Management; and Eric Fanning to be Under Secretary of the Air 
Force.
    Mr. Estevez, Mr. Vollrath, Mr. Fanning, we welcome you all. 
All three of our nominees have demonstrated their commitment to 
public service throughout their careers. We appreciate your 
continuing willingness to serve, and we appreciate the support 
that your families provide which is so essential to your 
success, as you well know. As is our custom, during your 
introductory remarks, your statements, please feel free to 
introduce any family members or friends that you have with you 
here today.
    Our witnesses today are nominated for policy positions that 
deal with some of the most complex challenges confronting the 
Department of Defense (DOD).
    The Principal Deputy Under Secretary of Defense for 
Acquisition, Technology, and Logistics will be a key 
participant in major decisions affecting the hundreds of 
billions of dollars that DOD spends every year to acquire 
property and services. If confirmed, Mr. Estevez will share 
responsibility for a broad array of functions, including 
developmental testing, contract administration, logistics and 
materiel readiness, installations and environment, operational 
energy, the acquisition workforce, the defense industrial base, 
and efforts to increase the Department's buying power and 
improve the performance of the defense acquisition enterprise.
    Mr. Vollrath has been nominated to be Assistant Secretary 
of Defense for Readiness and Force Management, responsible for 
developing policies, providing advice, and making 
recommendations to the Under Secretary of Defense for Personnel 
and Readiness in the areas of civilian and military personnel 
policy, readiness of the force, and military community and 
family policy. Additionally, the Assistant Secretary of Defense 
for Readiness and Force Management is responsible for 
allocating assigned resources and providing oversight of 
subordinate activities, including the overall day-to-day 
supervision of the Department of Defense Education Activity and 
the Defense Commissary Agency.
    Mr. Fanning has been nominated to be Under Secretary of the 
Air Force, the second highest civilian position in the Air 
Force. The Under Secretary of the Air Force assists the 
Secretary of the Air Force in organizing, training, equipping, 
and providing for the welfare of its more than 333,000 Active 
Duty men and women, 178,000 Air National Guard and Air Force 
Reserve members, 182,000 civilians, and their families. He also 
oversees the Air Force's annual budget of more than $110 
billion and serves as Acting Secretary of the Air Force in the 
Secretary's absence. As Under Secretary, Mr. Fanning would also 
serve as the Chief Management Officer of the Air Force.
    These three nominations come before this committee at a 
time of unprecedented turbulence. Just last week, we held a 
hearing on the impacts of sequestration and a full-year 
Continuing Resolution (CR). We found that if these events come 
to pass, which looks more and more likely, the negative impact 
on the Department of Defense will be huge.
    The Deputy Secretary of Defense, the Chairman of the Joint 
Chiefs, the Comptroller, and the Joint Chiefs of Staff all 
testified to the severe and significant issues that 
sequestration and a full-year Continuing Resolution will bring 
to each Service. While we hope an 11th hour solution can be 
found, we are pleased to see that individuals of the caliber of 
the witnesses and nominees before us today are willing to step 
into this maelstrom and serve in these important capacities. 
The challenges will be great and the tasks even more difficult 
than they are currently.
    Over the next few weeks, the committee will hold a series 
of important hearings. Next Tuesday, we will hear from the 
commanders of U.S. Central Command and U.S. Special Operations 
Command. Next Thursday, a week from today, we will hear from 
U.S. Africa Command and U.S. Transportation Command. The 
following Tuesday, March 12, 2013, we will hear from U.S. 
Strategic Command and U.S. Cyber Command.
    At the same time that we are doing this at a full committee 
level, our subcommittees are beginning to plan their hearing 
schedules for the year. In particular, the Personnel 
Subcommittee will hold a hearing on sexual assault in the 
military on March 13, 2013. I am very pleased that Senators 
Gillibrand and Graham are addressing this extraordinarily 
important issue. Our servicemembers, men and women, deserve an 
environment where they are not subjected to sexual harassment 
and sexual assaults. All members of our committee--and I just 
talked to Senator Gillibrand about this--whether they are 
members of that subcommittee or not are welcome to attend and 
participate, and I thank Senator Gillibrand for that.
    All our witnesses this morning bring strong qualifications 
to the positions for which they have been nominated. I look 
forward to their testimony, to the answers that they provide to 
our members during questioning. I hope the committee can act 
promptly to confirm these nominees.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. I join you in 
welcoming the nominees here this morning.
    Overshadowing everything that is going on right now, as the 
chairman said is the sequestration thing, which we have had the 
Chiefs in here and we have had everyone coming in and talking 
about the disastrous things that we are facing. Today is the 
day, however, that we will actually be voting on a couple of 
bills that will have to do with it.
    I would be remiss if I did not mention that one of the 
alternatives we have had began 5 weeks ago, Mr. Chairman. I 
contacted all the Chiefs, all five Chiefs of the Services, and 
said, if this becomes reality and we are going to be faced with 
this, how much could be mitigated? If you take the same top 
line and if you had the ability to make adjustments within each 
Service, what could you do? They said, it would put us light 
years in better shape than if we just had to take cuts across 
the board. I did not think we would get to that point, but we 
are there today. That is one of the alternatives that we will 
be discussing.
    Mr. Estevez, for too long, the way the Department has 
developed and procured weapons systems has been riddled with 
waste and inefficiency. We have talked about that for as many 
years as I have been up here. Recent legislative efforts such 
as the Weapons Systems Reform Act have put in place much needed 
reforms. Yet, given reductions in the defense budget and the 
threat of sequestration, it is more important now than ever 
that dollars used to equip our military are spent wisely. This 
will require the Department to define program risks. Risks are 
things that people do not like to talk about because risks 
translates into readiness and translates into deaths. We need 
to be addressing these things now, and most importantly, the 
Department is going to have to develop a culture of 
accountability for all programs.
    Mr. Vollrath, through our military forces, although they 
remain resilient, 11 years of sustained combat operations have 
left them battered. We talk about the suicide problems. I spent 
the better part of a day last week out at Bethesda, at Walter 
Reed. I was just overwhelmed with the really good job that 
people are doing out there, and it may be the only place that 
is not impacted by the constraints that the rest of the 
military is under. I know that you will be interested in that 
and keeping the fine work going, as it has been.
    Mr. Fanning, over the last 10 years, the Air Force has 
retired nearly 1,900 aircraft and reduced its Active Duty end 
strength to approximately 329,000 airmen, making it older and 
smaller than at any time since its inception in 1947. While 
service life extension programs and modifications have kept our 
Air Force flying, the cost to operate and sustain these 
aircraft continues to rise. It is something that we have been 
dealing with for as long as I have been on both the House Armed 
Services Committee and this committee.
    It is a challenge and I am sure that you are, all three, up 
to these challenges, and I look forward to working with you and 
to hearing your testimony.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Now, we will first call on Mr. Estevez.

STATEMENT OF HON. ALAN F. ESTEVEZ, TO BE PRINCIPAL DEPUTY UNDER 
SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Mr. Estevez. Thank you and good morning, Chairman Levin, 
Ranking Member Inhofe, members of the committee.
    I am grateful for the opportunity to appear before you 
today. I appreciate the great support that this committee 
provides to our military.
    I am honored that the President has nominated me for the 
position of Principal Deputy Under Secretary of Defense for 
Acquisition, Technology, and Logistics. I would like to thank 
President Obama for his trust and belief in my abilities to 
serve the Department.
    I would also like to thank Secretary Panetta, Deputy 
Secretary Carter, and Under Secretary Kendall for their support 
of my nomination.
    I am joined here today by my wife, Susan Pearson, and my 
sisters, Sue Ann and Pamela. I want to thank Susan for her 
continued support and sacrifice and her willingness to let me 
serve. As I noted in my confirmation hearing for my current 
position, without Susan's sage advice and counsel I would not 
be sitting here today. I am thrilled that my sisters were able 
to come down from New York and New Jersey to join me here 
today.
    Chairman Levin. We welcome them all. I am sure they are 
thrilled to be here.
    Mr. Estevez. I hope so.
    Chairman Levin. We will get a report from them in a couple 
hours. [Laughter.]
    Mr. Estevez. As the Assistant Secretary of Defense for 
Logistics and Materiel Readiness, it has been my privilege to 
support the Nation's men and women in uniform by providing 
world-class logistics capabilities. In the last 2 years, our 
defense logistics system has surged and sustained forces in two 
wars, successfully completed the drawdown of our forces and 
equipment in Iraq, and is in the process of supporting the 
drawdown and transition phase in Afghanistan.
    I have had the opportunity to take numerous trips to 
Afghanistan over the last 4 years, and I have witnessed 
firsthand the magnificent efforts of our deployed forces. They 
continue to inspire me and I will be honored to continue to 
support them if I am confirmed for this position.
    While most citizens do not realize it, the Office of the 
Under Secretary of Defense for Acquisition, Technology, and 
Logistics makes an impact on the everyday lives of the citizens 
of the United States primarily by acquiring the best technology 
and capabilities to enable our warfighters to protect this 
Nation but also, as was recently shown, by aiding the American 
people in the aftermath of natural disasters such as Superstorm 
Sandy. If confirmed, I will execute my duties to make sure that 
the American people are continually supported by the Department 
of Defense.
    I would again like to thank this committee for asking me 
here today, and I look forward to your questions.
    Chairman Levin. Thank you so much, Mr. Estevez.
    Mr. Vollrath.

    STATEMENT OF MR. FREDERICK E. VOLLRATH TO BE ASSISTANT 
    SECRETARY OF DEFENSE FOR READINESS AND FORCE MANAGEMENT

    Mr. Vollrath. Good morning, Chairman Levin, Ranking Member 
Inhofe, and members of the committee.
    I am honored to appear before you today.
    I appreciate the confidence that President Obama has 
expressed in nominating me to be the Assistant Secretary of 
Defense for Readiness and Force Management, and I am grateful 
to Secretary Panetta for supporting that nomination.
    It has been a great honor and privilege for me to have 
served our Nation in the U.S. Army wearing that uniform for 35 
years and currently as the Principal Deputy Assistant Secretary 
of Defense for Readiness and Force Management.
    The position of Assistant Secretary of Defense for 
Readiness and Force Management for which I have been nominated 
is a new position created by the Department pursuant to the 
authority provided in the National Defense Authorization Act 
(NDAA) for Fiscal Year 2010. It has also been my privilege to 
be the first individual nominated by the President to fill this 
very important role. During the past 11 months, I have also had 
the added responsibility of standing up the Office of the 
Assistant Secretary of Defense while serving as the Principal 
Deputy.
    I have over 40 years of human resource management and 
executive leadership experience and bring with me the unique 
perspective of having both government and nongovernment human 
resource experience. During my career, I have seen many changes 
in our military and fully understand the importance of 
maintaining a ready force, especially during these critical 
fiscal uncertain times. If confirmed, I will use this 
experience to aggressively take on the challenges of this 
office.
    I am grateful to the members of this committee and to all 
Members of Congress for the support they have given to our men 
and women in uniform and their families. If confirmed, I pledge 
to you that I will work diligently on behalf of our Nation's 
servicemembers, their families, and our civilian workforce that 
supports them. I am deeply honored to have the opportunity to 
continue my service to this great Nation.
    I look forward to your questions. Thank you.
    Chairman Levin. Thank you so much, Mr. Vollrath.
    Mr. Fanning.

 STATEMENT OF MR. ERIC K. FANNING TO BE UNDER SECRETARY OF THE 
                           AIR FORCE

    Mr. Fanning. Thank you, Mr. Chairman, Senator Inhofe, 
members of the committee. It is an honor to appear before you 
today.
    I would like to thank President Obama for nominating me and 
the Secretary of Defense for supporting this opportunity to 
serve. If confirmed, I greatly look forward to working with 
them and with this committee as well.
    Nobody gets the opportunity to serve in positions like this 
without the help of many people over a very long period of 
time. I am fortunate to have many of them here with me today, 
dating all the way back to college and including Larry Smith, 
who hired me out of college into my first job on the House 
Armed Services Committee, through my later work at the Pentagon 
and at Business Executives for National Security. He has been 
an important friend and mentor to me ever since. Thank you to 
them and all the others here today to support me.
    My mother had planned on attending, but as of late is 
unable to travel. I know she is watching from Florida.
    I come from a family with a long history of service in 
uniform. Two uncles graduated from West Point and made careers 
in the Army. Another uncle served a career in the Air Force. My 
cousin flew helicopters in the Marine Corps. I learned from an 
early age the importance of service and developed early on a 
deep respect and admiration for those who serve in uniform.
    The Air Force faces many challenges well known by this 
committee but is a proud organization with a rich history. Its 
greatest strength, of course, is its people, almost 700,000 
Active Duty, National Guard, Reserve, and civilians who make up 
the Air Force, along with their families. I have been immensely 
proud to serve these last 4 years with the men and women of the 
Navy and Marine Corps, and if confirmed, I very much look 
forward to becoming a part of the Air Force family. It would be 
my honor to play a role in making sure that the best men and 
women our country has to offer get all the support they need in 
undertaking the mission of defending our country, a mission for 
which they freely volunteered.
    Thank you again for considering my nomination. Thank you 
for your service, and I look forward to your questions.
    Chairman Levin. Thank you so much.
    Let me now ask you the standard questions that we ask of 
all nominees. You can answer together. This is a matter of 
exercising our legislative and our oversight responsibilities, 
and that is the reason for these questions.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Mr. Estevez. Yes.
    Mr. Vollrath. Yes.
    Mr. Fanning. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Estevez. No.
    Mr. Vollrath. No.
    Mr. Fanning. No.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    Mr. Estevez. Yes.
    Mr. Vollrath. Yes.
    Mr. Fanning. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Estevez. Yes.
    Mr. Vollrath. Yes.
    Mr. Fanning. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or their briefings?
    Mr. Estevez. Yes.
    Mr. Vollrath. Yes.
    Mr. Fanning. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Estevez. Yes.
    Mr. Vollrath. Yes.
    Mr. Fanning. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Mr. Estevez. Yes.
    Mr. Vollrath. Yes.
    Mr. Fanning. Yes.
    Chairman Levin. Okay. We will have an 8-minute first round 
of questions here, and let me start with you, Mr. Estevez.
    We have millions of pieces of equipment in Afghanistan, and 
we have a logistical challenge of great size as our forces draw 
down. Key to the ability to remove this equipment is whether we 
are going to have access to ground lines in Pakistan and along 
the Northern Distribution Network through Central Asia. Can you 
give us your assessment on the level of cooperation that we are 
getting now from Pakistan on the retrograde of military 
equipment through Pakistan?
    Mr. Estevez. Yes, Senator. Right now we are getting 
excellent cooperation with Pakistan. We have a number of proof 
of principles, as we call them, to move equipment through 
Pakistan. They are ongoing right now. Two of them have been 
successfully completed. The purpose of these is to hone out the 
processes with the Pakistanis, with their customs enforcement, 
with their port agencies, and with their trucking companies in 
order to facilitate an increased volume of those movements. But 
slow, steady progress.
    Chairman Levin. All right. So it is not just a contract 
agreement or a written agreement to open up these lines? It is 
actually now happening. Is that correct?
    Mr. Estevez. Yes, sir.
    Chairman Levin. Okay. Mr. Estevez, in response to the 
committee's advance policy questions, you stated that you do 
not believe that fixed-price development contracts are 
appropriate because ``most major weapons systems deal with 
maturing designs and significant integration problems, and a 
fixed-price development contract imposes too much risk on 
industry''.
    Now, we just adopted a defense authorization act which in 
section 818 says the following that, ``The conferees believe 
that program risks should be reduced to the degree that the use 
of a fixed-price development contract for a major acquisition 
system may be appropriate.'' Our Senate committee report on 
this provision explains that both the cost to the Government in 
using cost reimbursement contracts too far into the development 
and the importance of reducing program risk prior to a 
Milestone B decision by avoiding the incorporation of immature 
technologies is very important. We have to do that.
    I am not going to ask you a question now, but I would ask 
you to reevaluate, when you are confirmed, the position that 
you took in response to our advance policy questions in light 
of our law which we have now passed, section 818 and the 
committee report on the provision, and then get back to us. 
Will you do that?
    Mr. Estevez. I certainly will, Senator.
    Chairman Levin. Will you also get back to us on the 
question of contract services? Because we are going to need to 
do a lot more to understand and control spending on contract 
services. Contract services cost us about $200 billion a year, 
which is about as much as we spend on all products combined, 
including major weapons systems.
    I would also ask you, within the first, say, 60 days that 
you are in office, will you give us a report on the steps which 
you are going to take to address the question of controlling 
spending on contract services?
    Mr. Estevez. Absolutely, Senator.
    Chairman Levin. Mr. Vollrath, I would like to ask you about 
the threat of sequestration on personnel. Can you describe for 
us the impact of sequestration on, just to give one example, 
the Services' transition assistance programs?
    Mr. Vollrath. Certainly, Senator. The sequestration will 
result most likely in furloughs of the civilian workforce for a 
period of up to 22 days for the remainder of the year. The 
approximately 20 percent reduction in time from that civilian 
workforce will have an effect on the transition services that 
are required by the law, and we will have to do a significant 
job of scheduling to make sure that all servicemembers get the 
required transition training and experience. Right now, it 
appears that that may be possible.
    Chairman Levin. We hope it is possible, but obviously there 
is going to be huge pressure. We cannot make cuts of that 
nature without an effect. Would you agree with that?
    Mr. Vollrath. Yes, Senator, absolutely.
    Chairman Levin. By the way, I want to invite you to visit a 
college in Lansing, MI, the Lansing Community College, which 
has I think the most extraordinary program that I have seen to 
transition people into actual jobs which are available using 
the experience that they have and smoothing the way towards a 
civilian job by dealing with the regulatory agencies that exist 
on the civilian side. For instance, this program takes medics 
that come out of the military and has it all planned so that 
the State regulatory agencies with their certification 
requirements give credit for the service performed while in the 
Service so that they can much more quickly become medical 
technicians, for instance, and then registered nurses. I would 
like you to come and visit that program which I think may be 
unique in the country.
    Mr. Vollrath. Senator, given the opportunity, I most 
certainly will do that because we have had a full court press 
on trying to get the civilian sector particularly in all States 
to accept the credentials that service men and women acquire 
while on Active Duty.
    Chairman Levin. Thank you.
    Now, Mr. Vollrath, Senator Gillibrand, as I mentioned 
before, is going to have a hearing in her subcommittee on 
sexual assaults. I just want to let you know that when she does 
that at the subcommittee level, she and Senator Graham are 
going to be speaking for the full committee when that happens. 
This is something which is simply such an outrage for this to 
continue to occur that it must be at the top of the agenda when 
you take over responsibility.
    For instance, the Air Force is currently addressing a 
number of sexual misconduct cases arising out of basic training 
at Lackland Air Force Base, and at last count, sexual 
misconduct allegations have been made against 32 military 
training instructors involving 62 victims. Mr. Fanning, can you 
give us your thoughts as to what must be done in this area?
    Mr. Fanning. Thank you, Senator.
    Any instance of sexual assault is too many, and I think 
that leadership across the Department of Defense has to remain 
committed to preventing this from happening in the first place. 
I believe that we are seeing a marked increase in what the 
Department is trying to do to combat sexual assault. If 
confirmed into the Air Force, it would be an absolute priority 
of mine to continue those efforts and work with Secretary 
Donley and General Welsh in that regard.
    I think we need, first and foremost, as I said, to focus on 
preventing these from ever happening, but if they do, we need 
to ensure that victims of sexual assault have a safe place to 
report those assaults and have all the assistance that they 
need, medical, mental health, and legal. Finally, we need to 
make sure that perpetrators are held to account for their 
crimes.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Vollrath, you heard the comments that I made about my 
experience last week at Walter Reed. Have you had an 
opportunity to--I am sure you have over a period of time--to 
see the development, the progress, the magnificent results that 
we are getting over there? If you have seen that, what are your 
ideas on continuing that, and do you see that that is going to 
be threatened in any way by sequestration?
    Mr. Vollrath. In the near term, Senator, I believe 
sequestration will have some impact on it. In my particular 
portfolio and position, we work closely with the health affairs 
side to leverage all of the capabilities that they have 
developed and reach out to the civilian community because the 
effort is not just and the solution is not just within the 
Department of Defense. We need to leverage all resources.
    Senator Inhofe. Yes. When you say that it could affect it 
adversely now, do you have anything specific in mind? I am just 
wondering what areas it could be adversely affected.
    Mr. Vollrath. To the degree that the civilian workforce is 
there for their support, given that the majority of the medical 
care is provided by the uniformed services, the support element 
will degrade some of that service.
    Senator Inhofe. Okay.
    The chairman asked you the question about the civilian 
employees, the furloughing. In my State alone, we are 
estimating about 24,000 people. It is a huge number and we are 
concerned about it and you did respond. But if sequestration 
occurs, what would DOD and the Air Force do to minimize the 
impact on civilian employees? Is there anything, any ideas, you 
have now to try to minimize the negative impact that we are 
having right now with people? In my State, just knowing it is 
going to happen is something that has been pretty critical.
    Mr. Vollrath. Senator, we do not have any silver bullet to 
spend to minimize the impact on the civilian workforce. I wish 
we did. Potentially if we could move money around, that might 
assist. But what we have done is to make sure that we do not 
take out most of the sequestration or the reductions on the 
back of the civilian workforce.
    Senator Inhofe. They were pretty optimistic out there in 
that they felt the good job they are doing--and I like to stand 
behind them in minimizing any of the negative impact. If you 
are confirmed, I would like to be kept up to date as to 
anything that might affect that.
    Mr. Fanning, the Government Accountability Office (GAO)--
first of all, I was wondering how you are juggling this thing, 
coming from the Navy and going into the Air Force. In your 
opening statement, I was very impressed. You have that close, 
intimate connection with both the Army, the Navy, Marine Corps, 
and the Air Force. I guess you would fit in about any place.
    There was something that I was interested in when GAO 
recently released a report entitled ``The Depot Maintenance 
Additional Information Needed to Meet DOD's Core Capability 
Reporting Requirements.'' The report cited the Air Force for 
not having an explanation for a sufficient plan organic--that 
is, internal--depot workload to meet these core requirements. 
The report specifically cited certain Air Force shortfalls and 
plans to mitigate them by assigning work to Air Force depots to 
support existing and new weapons systems such as unmanned 
aerial systems, munitions, and the F-35. Have you had a chance 
to look at that report and that particular area that I have 
just quoted?
    Mr. Fanning. No, Senator. I have not yet seen that GAO 
report although I do appreciate the proper balance in depots 
between organic and contractor.
    Senator Inhofe. Yes. This actually goes a little bit 
further than that because it talks about the mix has not been 
quite as accurate as it should have been or equitable as it 
should have been in the past, and it makes specific 
recommendations.
    What I would like to have you do is provide to me where the 
Air Force has identified depot work shortfalls and the 
specifics. I would like to ask you to read that in the next 
short period of time so that we could actually have a 
discussion as to what your feelings are going to be on that. 
Would you do that for us?
    Mr. Fanning. Absolutely, Senator.
    [The information referred to follows:]

    The Air Force reported shortfalls in Core sustaining workloads in 
the two areas: (1) Communications/Electronics Equipment; and (2) 
Ordnance, Weapons and Missiles. As new weapon systems are fielded such 
as MQ-1, MQ-9, KC-46, and F-35, these workloads will be established 
organically to specifically address core shortfalls in these and in any 
areas identified in future Core analyses. The report stated that the 
Air Force would mitigate the shortfall through incrementally assigning 
maintenance work to organic (military) depots for the MQ-1 and MQ-9 
between the third quarters of fiscal year 2012 through fiscal year 
2016. The workloads for these systems have been assigned to the Air 
Logistic Complexes and standup of the workloads is being accomplished 
with depot activation teams composed of members from the appropriate 
program office, depot and industry original equipment manufacturer. The 
depot activation teams ensure the necessary facilities, equipment and 
personnel are acquired and installed at the organic depots to execute 
the planned workload. The Air Force has budgeted for and received funds 
to activate MQ-1, MQ-9, and F-35 workloads. The program offices for 
these systems are working on plans to activate core workloads no later 
than initial operating capability (IOC) plus 4 years and in many 
instances earlier than required. For example, the F-35 is activating 
the airframe at Ogden Air Logistics Center (ALC), the engine at Tinker 
ALC and electronics/communication at Robins ALC while the program is 
still in low rate production, well before IOC. The MQ-1 and MQ-9 
program office is actively standing up workloads at all three Air Force 
Logistics Complexes and at Navy and Army depots to satisfy Department 
Core requirements. These programs and others have programmed for depot 
activation and are working diligently to ensure the Air Force has the 
organic capability required to sustain the warfighter.

    Senator Inhofe. Okay, good.
    Mr. Estevez, I have expressed concern that wide-ranging 
authorities contained in the Defense Production Act are being 
used by the Department of Defense to spend $170 million for the 
design and construction of a commercial biofuels refinery. On 
February 6, 2013, the same day the Secretary of Defense 
announced that the Truman carrier group would not be deploying 
to the Middle East due to budget cuts, we received a letter 
from Frank Kendall, the Under Secretary for Acquisition, 
Technology, and Logistics, announcing the Department's intent 
to spend $30 million on the advance drop-in biofuels production 
used by the Defense Production Act.
    I am sure that you have heard a lot of this, including the 
Senator that was sitting to my left and myself talking about 
the concern that we have with the budget shortfalls, with the 
disasters that are taking place right now, how we could be 
experimenting in biofuels and even talk about the construction 
of refineries in terms of prioritizing. I would like to have 
your thoughts about that. Is that the best use of defense 
funds?
    As I remember when they started the Department of Energy, 
that is one of the things that they were supposed to be doing. 
Do you have any thoughts on that?
    Mr. Estevez. I do, Senator. Thank you.
    When you look across our energy investments, the vast 
majority, 96 percent of our energy investments, go to things 
like better engine technology, increasing range, increasing 
fuel capability on things like jets, tanks, and the like so 
that we are decreasing our demand, decreasing the need to put 
fuel out onto the battlefield. A small amount of that resource 
does go towards what we would call increasing the flexibility, 
increasing the resources that we can draw on, increasing the 
supply. The $30 million would go to that. We are assessing the 
responses we have on our request for information from industry 
on that. Under the sequestration and budget environment that we 
are operating under, obviously every investment will have to be 
looked at, but we think that the small amount that we are 
putting into that is a prudent investment for the future.
    Senator Inhofe. We are talking about a lot more money than 
$30 million. We are talking about the acquisition in the case 
of the Navy. Mr. Fanning, maybe you have some background on 
this too. The 450,000 gallons that were procured for, I think 
it was--I am going by memory right now--I think $29 a gallon as 
opposed to $3 a gallon. You start doing the math on that and 
what the Air Force is doing now, it comes up to considerably 
more.
    Here is what I would like. I do not want to put you on the 
spot now. But I would like to have you, for the record, to give 
me an evaluation, a justification as to those expenditures and 
relative to the other expenditures that directly affect our 
national defense, particularly in this time of sequestration. 
Would you do that?
    Mr. Estevez. I would be happy to do that, Senator.
    Senator Inhofe. Thank you.
    [The information referred to follows:]

    I believe that the Department of Defense should continue 
its modest investment in alternative fuels. As one of the 
world's largest consumers of petroleum, the Department has an 
interest in diversification of fuel supplies as a hedge against 
potential supply disruptions, especially for our legacy fleet 
of ships and planes, which will be with us for decades to come. 
Over the next 5 years, 96 percent of the Department's funding 
to improve operational energy use is devoted to reducing the 
amount of fuel required for military operations. The remaining 
4 percent is a relatively small but important investment in 
alternative fuels, which is a longer-term strategy for our 
energy security. Most of this investment ensures that our 
equipment can operate on a wide range of fuels, so we are 
prepared if and when alternative fuels become commercially 
available. As petroleum is a finite resource, we believe this 
to be a prudent investment, and we have been performing these 
types of activities since 2003.
    The Department's primary alternative fuels goal is to 
ensure operational military readiness and further the 
flexibility of military operations through the ability to use 
multiple, reliable fuel sources. To help achieve this goal, we 
released the Department of Defense Alternative Fuels Policy for 
Operational Platforms in July 2012. The policy confirms that 
all investments are subject to rigorous, merit-based evaluation 
and that the Department will not make bulk purchases unless 
they are cost competitive with petroleum products. To date, the 
Department has only purchased relatively small test quantities 
of alternative fuels, which are used in testing, evaluation, or 
demonstration activities. These purchases are mostly prototypes 
and should not be equated with commercial fuels purchases. I 
will ensure that the Department complies with the existing 
internal policy.

    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, and thanks to 
each of our witnesses for their leadership and their service to 
our country. I am very grateful.
    I am very concerned about the status and the well-being of 
the men and women who serve in our forces. I am very worried 
about the sexual assault rate estimated by the military at 
19,000 a year. I am concerned about the suicide rate, almost 
one a day. I am concerned about hazing incidents. I am 
concerned about how we implement the repeal of Don't Ask/Don't 
Tell.
    With regard to these issues, I would like to first ask Mr. 
Vollrath what he thinks in terms of how will you provide 
leadership on these issues to protect the force from hazing, 
from sexual assault, to prevent suicide. How do you look 
forward to addressing these policies?
    Mr. Vollrath. Thank you, Senator.
    First, to begin to resolve these issues in the long term, 
we need to ensure that we have reasonable policies in place, 
good communications over time that are effective so that all 
members of the Service understand the rules and the 
capabilities that they have to resolve their problems.
    Let me talk about a case in point in suicide. Clearly we 
have not broken the code on suicide and suicide prevention. 
Period. We have not. What should we do and what are we doing?
    One, establishing an office to focus and coordinate all of 
the efforts that have been taking place across all of the 
Services.
    Two, ensure that we have a coordinated communication plan. 
That is different than just sending out notices or public 
service announcements periodically. It is similar to 
advertising, frequency and reach. You need a consistent message 
and a constant message for people to understand so that they 
are willing to change their behavior and the stigma associated 
with seeking help is overcome. I will ensure, upon 
confirmation, that that takes place.
    Third, in all areas, we need to make sure that we do a 
better job of educating our leaders all the way to the lowest 
level as to the responsibilities that they have to take care of 
their members of their organizations all the time. It is not 
just at the captain level, the lieutenant level, or the mid-
grade sergeant level. It is at the corporal level.
    I believe that we can and will do a better job with the 
leadership, the communication, and changing and reinforcing 
that culture of care. That same statement and that same thrust 
and strategic direction will be employed across all of those 
areas that you mentioned, Senator.
    Senator Gillibrand. Thank you.
    Another area that needs attention is the transition from 
Active Duty to veteran status because if you look at the 
indicators, suicide rates are even higher once they leave the 
military. If you look at the front page of the New York Times 
today when a woman has been sexually assaulted or has trauma 
experience while serving, the likelihood of her being homeless 
increases greatly once veteran status kicks in. I hope that you 
will also focus your attention on that transition, that very 
important time between transitioning from Active Duty to 
veteran status, to make sure our men and women do not suffer 
even after they leave the military.
    Mr. Vollrath. Senator, absolutely we will continue to do 
that.
    Senator Gillibrand. One other personnel issue. We work very 
hard in this committee to ensure that children of our military 
men and women who have special needs, autism, among other 
special needs children, have the access to the resources they 
need for just the medical attention they need. We are seeing 
that the implementation of even that pilot program is not going 
smoothly. I would like your commitment that you will focus on 
this issue and make sure that those children receive the health 
care that they need.
    Mr. Vollrath. Senator, you have my commitment.
    Senator Gillibrand. Thank you.
    An issue that has been challenging for all of us here in 
Congress has been the issue of cybersecurity. I am concerned 
that we do not have the capability to recruit all of the best 
and brightest within the cyber world to do the work that we 
need for cyber defense and other missions related to that.
    For Mr. Fanning, I was very pleased to read in your pre-
prepared questions and answers that you plan to provide 
direction for Air Force science and technology that will focus 
on operation in space and cyberspace domains, but I am very 
disappointed that there are significant budget cuts. How will 
you deal with these budget cuts? In particular, we have assets 
in New York at Rome Labs that will also see budget cuts. I do 
not see how you will meet your mission requirements with these 
kinds of cuts.
    Mr. Fanning. Thank you, Senator.
    Not having been confirmed, I am not fully briefed on what 
the Air Force's plans are in dealing with potential budget 
cuts. Difficult cuts will have to be made. Everything will have 
to be on the table. But cybersecurity, if confirmed, would be a 
priority of mine, both in making sure that we adequately 
resource cybersecurity needs but that we think creatively and 
with focus on how we build a cyber workforce. I agree with you. 
I think that is going to be a very difficult workforce to 
retain once we have recruited and trained it and it would be a 
priority of mine, if confirmed.
    Senator Gillibrand. Secretary Estevez, as conventional 
warfare becomes more technology-based, how do you believe that 
we should retain the talent especially in the fields of 
information technology and cyber warfare that we are going to 
need, particularly when the private sector pays far more than 
the military can?
    Mr. Estevez. Of course, personnel is not my area of focus 
other than for the acquisition workforce. But in general, what 
we find is that people serve the Department of Defense and our 
Government out of a feel for a greater good, as I would say the 
folks sitting up here, as yourselves. We have to draw on that 
and then we have to ensure that we treat our workforce 
properly.
    Senator Gillibrand. Mr. Vollrath, one suggestion and one 
thing to consider is, obviously, we have great flexibility with 
our National Guard and Reserve to recruit talent who are expert 
in other fields and work in other fields as their day jobs. 
Will you consider how you could possibly recruit National Guard 
and Reserve cyber experts or a cyber corps which could leverage 
some of the training and hiring from the private sector?
    Mr. Vollrath. Senator, absolutely. As we have looked at 
trying to develop and grow the cyber community necessary to man 
the various different units, use of the Reserve components has 
been critical to the long-term strategy to make this effective. 
We cannot do it without the Reserve Forces.
    Senator Gillibrand. Moving to science and technical 
workforce issues, back to Mr. Estevez. What challenges do you 
see facing DOD and the research and development communities as 
they seek to attract entry, mid, and senior technical experts 
into their organizations?
    Mr. Estevez. Again, with our budget issues, it is going to 
become more difficult. It is an area of focus for us. There are 
some tools that we can use, including the use of temporary 
assignment of personnel through the Intergovernment Personnel 
Act (IPA) and individual augmentees. We use that extensively at 
the Defense Advanced Research Projects Agency to attract people 
who want to come and serve the Government and serve the 
Department for periods of time before they go back to their 
universities. Plus we draw on university talent.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Gillibrand.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses for being here and their continued 
willingness to serve the country.
    Mr. Fanning, a few months ago, the Air Force decided to 
kill a huge logistics supply chain management business system 
called the Expeditionary Combat Support System (ECSS) after 
sinking about $1 billion into the program, finding that another 
$1.1 billion would be needed to field just 25 percent of the 
promised capability and extracting from the taxpayers' total of 
a $1 billion investment less than $150 million in useful 
hardware and software.
    Some of us on this committee, including the chairman and I, 
have been doing everything that we can to prevent the 
sequestration which we believe is devastating to our Nation's 
security. We believe our uniformed military, as well as the 
former Secretary of Defense who testified before this committee 
how devastating the effects would be.
    How do I, Mr. Fanning, go tell the taxpayers of America in 
my State that the Air Force just wasted $1 billion on a program 
that obviously was a miserable failure? So far, do you know 
anybody who is responsible for that failure?
    Mr. Fanning. I have not yet been briefed on the Air Force's 
lessons learned, but I have had an opportunity in my Navy 
position to watch the developments with this program. I 
approach all business information technology (IT) systems with 
a great deal of skepticism in the Department of Defense, and in 
the Department of the Navy, in fact, we stopped the development 
of a major personnel and pay system because we thought it was 
on track to not deliver what was promised and waste taxpayer 
funds.
    I think what I see in ECSS that I see in many other 
programs is a rush to a material solution before non-material 
solutions or business process----
    Senator McCain. Has anybody been held responsible that you 
know of, Mr. Fanning?
    Mr. Fanning. Not that I know of, no.
    Senator McCain. Secretary Estevez, anybody fired? Anybody 
removed from their position? Anybody said this is the person in 
charge that made this $1 billion--excuse me. We saved $150 
million out of $1 billion.
    Mr. Estevez. I believe, Senator, and I would have to 
confirm this, that the prior program executive officer (PEO) 
and prior program manager were removed from their positions. 
They were not the people who were there when we killed the 
program. They were the people who were there that led to the 
program restructuring and led to the recommendation to kill.
    Senator McCain. I am sure you understand our frustration, 
which brings me to the F-35.
    Lieutenant General Bogdan has a pretty good reputation 
before this committee. He was in charge of the tanker program 
which seems to be on track. Yet, a couple or a few days ago he 
said, ``What I see Lockheed Martin and Pratt & Whitney doing 
today is behaving as if they are getting ready to sell me the 
very last F-35 and the very last engine and are trying to 
squeeze every nickel of that last F-35 and that last engine.'' 
The general told reporters, ``I want them both to start 
behaving like they want to be around for 40 years. I want them 
to take on some of the risk of this program. I want them to 
invest in cost reductions. I want them to do the things that 
will build a better relationship. I'm not getting all that love 
yet.'' Then he said--asked if he had seen some improvement from 
the companies, are they getting better at a rate that I want 
them to see them getting better? He said no, not yet. Of 
course, now we know that with massive failures, massive cost 
overruns that Lockheed has earned a 7-percent profit since the 
program began in 2001.
    Do you have any justification for that?
    Mr. Estevez. I cannot address the past. I can address where 
we are today.
    Senator McCain. You cannot address the past?
    Mr. Estevez. I cannot address what happened from 2001 until 
where I am today.
    Senator McCain. You cannot address that at all?
    Mr. Estevez. Senator, we have put new structures around 
that program. We have a new contracting process for that 
program. We now have a firm, fixed-price contract, incentive 
fee, 12 percent share. Lockheed will also pay the concurrency 
problems on that contract. So we have restructured the program. 
We brought in Admiral Venlet and now General Bogdan to run that 
program, two excellent PEOs, and we are working closely with 
Lockheed and Pratt to work through the problems that General 
Bogdan referenced in that news article.
    Senator McCain. So since 2001--and we are in 2013--we are 
beginning to work through the problem. Is that what I can tell 
my constituents, Mr. Secretary?
    Mr. Estevez. I believe you can over the last 4 or 5 years--
5 years or so, we have restructured the program and we believe 
we are now on track to get a successful program.
    Senator McCain. Now, you are sitting here before this 
committee and you can tell us there will be no further cost 
overruns borne by the Federal Government?
    Mr. Estevez. I could not possibly do that, Senator.
    Senator McCain. Why can you not? Why can we not penalize 
companies for failure to live up to the obligations of their 
contracts?
    Mr. Estevez. It is important to get the right structure of 
contract. Senator Levin----
    Senator McCain. After 12 years.
    Mr. Estevez. On this particular airplane, I believe we do 
have the right structure of contract now and we will continue 
to get better contracts as we move into future development or 
production of this airplane.
    Senator McCain. Mr. Fanning or Mr. Vollrath, do you have 
any comments on this situation? By the way, the plane is 
grounded again, as we know, because of a crack in the engine. 
It is grounded again. Do you have any comments, Mr. Vollrath?
    Mr. Vollrath. Senator, I do not. I do not know enough to 
comment intelligently about it.
    Senator McCain. If I sound frustrated, I say to the 
witnesses it is because I am. This committee has been tracking 
this program for many years. We have had witness after witness. 
We have had promise after promise. We have had commitment after 
commitment. Yet, the only thing that has remained constant is 
that Lockheed has earned a 7 percent profit since the program 
began in 2012. Excuse me. Since the program began in 2001, 12 
years later.
    Maybe you can help me out. What am I supposed to go back 
and tell my constituents about a $1 billion program that the 
Air Force cancelled and, of course, the now most expensive 
weapons system in history that has now reached $1 trillion and 
the aircraft is now grounded? Do you have any ideas for me, Mr. 
Secretary?
    Mr. Estevez. Senator McCain, we are working very 
diligently, Secretary Carter, Secretary Kendall, myself, our 
leaders across the acquisition community to change the culture 
and change the processes by which we buy our programs. I know 
that you have been briefed on what we call Better Buying Power. 
That includes accountability for our PEOs and program managers. 
It includes managing affordability. It includes cost control so 
that we can change the way we do this.
    Senator McCain. According to one of the people who is very 
highly regarded by this committee because of his previous 
performance, General Bogdan says, are they getting better at a 
rate that I want to see them getting better? He said, no, not 
yet. I would say you have your work cut out for you.
    I can just say that as strong an advocate as many of us are 
for maintaining a strong national security, you cannot continue 
these kinds of incredible, total loss of the taxpayers' dollars 
without there being an understandable backlash on the part of 
the taxpayers of America, which I believe will harm our ability 
to defend this Nation.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Before I call on Senator Donnelly, let me just tell you, 
Secretary Estevez, I share very deeply Senator McCain's 
frustration. We need answers. We need answers in addition to 
what Senator McCain pointed out. The folks who write the 
contracts, unless there is recoupment provided for from the 
contractors for failures, there is accountability lacking not 
just on the type of equipment itself, the production of that 
equipment, the failure of a contractor to produce something 
that works.
    There is also perhaps failure on our part in terms of did 
we write contracts which did not provide for recoupment, and if 
there is failure there, where is there accountability inside 
the Department or the agency which wrote the contract which let 
contractors off the hook? There is a lack of accountability 
kind of up and down the line. This engine issue is just the 
most recent manifestation of it.
    Senator McCain with his great initiative in this area is 
going to be--and I will be joining him--actively involved in 
this Expeditionary Combat Support System loss. Whether it is 
$850 million or $1 billion, it is just incredible. Where is the 
recoupment of that money? Why is that a loss to the Treasury 
instead of to the contractor? We need answers on that. It is in 
the middle of sequestration. It just dramatizes the problem, 
but this problem has been existing too long. Senator McCain and 
I and others on this committee and other committees have tried 
to rewrite laws. We have rewritten laws to provide more 
accountability, but we are going to be looking to you, 
Secretary Estevez, for answers.
    Thank you.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    To all of you, thank you for your service to our country.
    Mr. Fanning, with our National Guard and our Reserve 
members, they at times, obviously, are at home and are not part 
of serving at that point. What mental health resources does the 
Air Force have when they are at home, when they are not in the 
field and they are struggling with suicide and with mental 
health issues? Their alternative of going to see private care 
or going to talk to friends or whatever--how do we fill that 
hole so that they can still receive care, receive counseling 
when they are not on Active Duty pay status?
    Mr. Fanning. Senator, I think the total force structure of 
the Air Force, which is something I am learning about now--it 
is different than what we were accustomed to in the Navy and 
Marine Corps--is a critical strategy for the Air Force. The 
Guard and Reserve are important partners with the Active 
component. From what I am told by the Air Force in my briefings 
by the Surgeon General, there are a multitude of services 
available for people who are not on Active Duty or who are 
remotely located.
    If confirmed, I will look into this much more closely. I 
think one of the problems is making sure that those Guard 
members, those Reserve members who are not activated are aware 
of the services that are available to them. I think 
communication is one of the critical gaps in what we have in 
making sure that those individuals know what services are 
available.
    Senator Donnelly. If you could get further details for us 
because, obviously, just because their pay status has changed, 
their problems do not go away and their need for help does not 
go away. As you said, they may not know where to go for help or 
how to get it. So anything you can do in that process to let us 
know what the plans are, what the future plans are, we would 
appreciate.
    Mr. Fanning. Absolutely.
    [The information referred to follows:]

    The Department of Defense, as a whole, is absolutely committed to 
the well-being of all our troops and personnel.
    A number of resources exist for Air Force Reserve and Air National 
Guard members not on duty when they are struggling with suicidal 
thoughts and mental health issues.
    The Air Force Reserve and Air National Guard are dedicated to 
developing a culture of resilience, by encouraging healthy lifestyles 
in four main areas known as Comprehensive Airmen Fitness: physical, 
mental, social, and spiritual. Airmen with strong physical, mental, 
social, and spiritual fitness have the ability to withstand, recover 
and even grow in the face of stressors and changing demands. By 
educating airmen and families about resources and focusing on the 
importance of the ``wingman culture'' and building meaningful 
relationships, airmen are encouraged to seek help before a crisis 
occurs.
    The Air Force Reserve and Air National Guard provide education, 
outreach, and resources for families through unit leadership. Air Force 
regulations specifically direct unit commanders and first sergeants to 
proactively contact and provide support for family members of deploying 
Air Reserve component members. The unit commander also tasks various 
support agencies, including Airman and Family Readiness, to ensure that 
families are contacted and provided for.
    The Yellow Ribbon Program offers resources on behavioral health 
issues and suicide mitigation and is offered to Reserve and Air 
National Guard airmen and their families predeployment, during 
deployment, and post deployment. Funded by Yellow Ribbon, the 
Psychological Health Advocacy Program (PHAP) is designed to assist 
Reserve airmen and their family members with a variety of needs, 
including mental health issues, financial assistance, relationship and 
family counseling, and substance abuse through referrals. There are 
three regional, four-person teams to support Reserve airmen and their 
families as well as provide 24/7, non-crisis telephone support. The 
Reserve PHAP staff attends all Yellow Ribbon events as well as provides 
outreach to the bases in their regions.
    The Air National Guard Psychological Health Program (PHP) was 
developed to address psychological health needs of ANG airmen and their 
families. The PHP places a licensed behavioral health provider at each 
of the Air National Guard's 89 wings throughout the 54 States, 
territories, and the District of Columbia. The program provides three 
categories of service: leadership advisement and consultation; 
community capacity building; and direct services--to include 
assessment, referral, crisis intervention, and case management services 
that are available daily. The wing directors of Psychological Health 
are available 24/7 to operational leadership and provide services to 
Air National Guard airmen and their family members regardless of 
whether they are at home or on duty status.
    The Air Force Reserve Wingman Toolkit is a broad-based Air Force 
Reserve initiative designed to empower airmen and their families to 
achieve and sustain wellness and balanced lifestyles using the four 
domains of Comprehensive Airman Fitness. The toolkit is located at: 
http://AFRC.WingmanToolkit.org. The website was first launched in 2010 
and is accessible 24/7 from any computer by anyone with access to the 
internet. The Wingman Toolkit provides commanders, airmen, families, 
and friends (i.e., Air Force Reserve wingmen), access to a wide variety 
of resources, training opportunities, a dedicated Wingman Day page, 
promotion of the Ask, Care, Escort (A.C.E.) suicide intervention model, 
educational outreach materials, social media (Facebook, Twitter, Etc.), 
a mobile phone application, SMS texting capability (``WMTK'' to 24587), 
inspirational and training videos, a YouTube page, and partnerships 
with other organizations. The Wingman Toolkit, in addition to annual 
wingman stand down days and the longstanding Air Force suicide 
prevention program, educates and equips airmen, commanders, first 
sergeants, co-workers, family members, and friends to proactively take 
care of themselves and avoid crises. It's also the first line of 
support in identifying airmen in need of assistance and prepares them 
to get to safer, healthier places.
    Since Air Reserve component wingmen (e.g. family, friends) are 
often non-military personnel, the Air National Guard's Wingman Project 
provides information and resources for suicide prevention on publicly-
accessible websites. The Air National Guard tailors marketing and 
resource materials for each State. The primary goal of the Wingman 
Project, located at http://wingmanproject.org, is to reduce warfighter, 
Department of Defense civilian, and family member suicides through 
human outreach, education, and media. The site provides education on 
how to intervene if someone is in emotional distress and provides tools 
and resources to target specific risk factors for suicide. The Wingman 
Project helps airmen actively engage in increasing wellness and 
preventing suicide. The Wingman Project has additionally published a 
mobile application which works on all smartphone platforms, and can be 
utilized to communicate in between drills, ACE training, and locating 
helping resources.
    The Air Force Reserve has obtained additional Reserve pay funding 
to increase chaplain support to installations to help build unit 
resiliency and provide suicide prevention support during seasonal 
crisis times, for those bases who request additional support, and units 
with previous suicide incidents.
    The Airman's Guide for Assisting Personnel in Distress (commander 
and airman versions) is a web-based tool available to all 
servicemembers, including Guard and Reserve, to provide vital 
information about the wide range of challenges, indications of 
distress, recommended supportive actions by peers and leaders, and 
links and contacts for additional resources. The tool facilitates 
leader involvement and can help resolve potentially volatile 
situations.
    TRICARE Reserve Select is available for Reserve component airmen 
and their family members and provides coverage for both outpatient and 
inpatient treatment. Access to military medical care is available to 
servicemembers with duty related conditions through TRICARE and the 
Department of Veterans Affairs.
    Airman & Family Readiness Program Managers (A&FRPMs) align family 
support capabilities with the Joint Family Program in the States to 
provide support to all servicemembers and their families, providing 
direct sustainment and support to their wings. Air Force Reserve 
Command and Air National Guard Family Readiness Programs are designed 
to maintain and support mission readiness by assisting servicemembers 
and families with adaptations to the challenges of the military 
lifestyle.
    Vets4Warriors: 1-855-838-8255/1-855-VET-TALK. 
www.vets4warriors.com. This Toll-Free 24 hour helpline is available to 
servicemen and their families--peer counseling and support, telephone 
assessments, and referrals for mental health issues, to include 
suicidal thoughts.
    Military OneSource is provided by the Department of Defense at no 
cost to active duty, Guard and Reserve servicemembers, and their 
families. It provides comprehensive information on every aspect of 
military life including deployment, reunion, relationships, grief, 
spouse employment and education, parenting and child care, and much 
more.

        <bullet> Support 24/7, free and confidential resources for Air 
        Reserve component members consultations on any number of issues 
        such as spouse education and career opportunities, issues 
        specific to families with a member with special needs, and 
        financial support and resources.
        <bullet> Offers personal non-medical counseling services 
        online, via telephone, or face-to-face.
        <bullet> Non-medical, short-term counseling, as well as 
        assistance with financial management, taxes, career services, 
        health and wellness, and much more.

    The Department of Veterans Affairs offers multiple resources and 
benefits that are available in person, online, or through the mail. 
Finally, the Military (or Veterans) Crisis Line, 1-800-273-8255 (TALK), 
Press #1, www.militarycrisisline.net, or text to 838255 is available 
24/7 to all servicemembers and their families. It is a joint venture 
between the Department of Defense and the Department of Veterans 
Affairs' call center, which is associated with Substance Abuse and 
Mental Health Services Administration's National Suicide Prevention 
Lifeline. Resources include an online ``Veteran's Chat'' capability and 
the call center's trained personnel provide crisis intervention for 
those struggling with suicidal thoughts or family members seeking 
support for a Veteran.

    Senator Donnelly. Mr. Estevez, we have a case with our 
Indiana National Guard where they were working alongside a DOD 
contractor in Iraq in 2003 and were exposed to sodium 
dichromate. These are our neighbors. These are our friends. 
These are men and women working at the local tire store who 
were now over in Iraq at that time serving our country. The 
contractor they were working with had an indemnification 
provision. The question I have is, what are your views of these 
indemnification contract provisions used by DOD and what 
protection do our servicemembers have when those are in place?
    Mr. Estevez. Senator, I am not familiar with the case, of 
course, but I would be more than happy to look into it. With 
regard to indemnification, of course, it depends on where you 
were operating and what backup the Department puts in. We are 
asking people to take risks when we put them out on the 
battlefield regardless of whether they are operating on a 
protected area of that battlefield. But I would be happy to 
look into that issue, sir.
    Senator Donnelly. Part of the risk should not be that when 
they are working next to a contractor. It was not the risk of 
insurgents. It was the risk of sodium dichromate. We want to 
try to make sure that when we tell our young men and women and 
take them from the community colleges and from working at the 
accounting firm, that they can expect to be safe--obviously, as 
much as possible in the situation that they are placed in.
    [The information referred to follows:]

    I understand that the indemnification of contractors against 
unusually hazardous risks is limited. Only the Secretary of Defense, 
the Under Secretary of Defense (Acquisition, Technology, and 
Logistics), and the Secretaries of the Military Departments can approve 
such indemnification, and a decision to approve indemnification is made 
based on the unique facts of the particular case.
    I understand that contractor indemnification under Public Law 85-
804 does not apply to servicemembers. Should I be confirmed, I will 
undertake to familiarize myself further in this area.

    Senator Donnelly. Mr. Vollrath, we are facing 
sequestration. It was noted that we lost more men and women to 
suicide in the last year than were killed in Afghanistan. The 
challenges that we face with sequestration are great. But one 
of the things I would ask you in this position is to continue 
with the financial challenges we are facing to continue to see 
how can you squeeze every dollar out to try to make sure that 
we continue to make progress on this front. I know General 
Chirelli was extraordinarily focused on this effort. It is 
going to take tremendous creativity in the years ahead. But I 
would ask, along with the other areas that my colleague, 
Senator Gillibrand, was talking about, to please keep a focus 
like a laser on how can we end this scourge.
    Mr. Vollrath. Senator, you have my commitment, upon 
confirmation, that we will continue to keep a full court press 
to overcome what clearly is a tragic situation.
    Senator Donnelly. Mr. Estevez, we are, obviously, having 
troops come home now, and as we do, we are in the situation 
where we have more contractors in Afghanistan now than troops. 
So what are the expectations of contractor numbers as we move 
forward over the next year or 2?
    Mr. Estevez. Right now, we have about 110,000 contractors 
in Afghanistan. A little more than a third, about 40 percent, 
are actually Afghans. Of course, they will stay in Afghanistan. 
We are actively drawing down that number. In instances, as we 
draw down combat forces, there will actually be more 
contractors because they help close down bases rather than have 
our military do that. We want the combat power there. But we 
have an active cell closing down contracts and bringing those 
contractors back.
    Senator Donnelly. What do you see as our footprint 
contractor-wise a year from now?
    Mr. Estevez. It will be about one and a half higher, maybe 
two higher as we draw down. There is going to be a little 
higher spike as we draw down.
    Senator Donnelly. Than it is right now?
    Mr. Estevez. No. It will be about the same ratio. Right now 
it is approximately 68,000 troops to 110,000 contractors. I 
expect that to remain over the next----
    Senator Donnelly. The ratio of troops to contractors will 
remain in the same neighborhood.
    Mr. Estevez. Yes.
    Senator Donnelly. Mr. Estevez, in an environment where 
countries like China are using cyber attacks to engage in theft 
of intellectual property across the board almost, what steps 
will you take to enhance DOD's collaboration with the defense 
industry to protect U.S. taxpayer-funded intellectual property? 
I was with one of our shipbuilding organizations the other day 
and they said they are subject to cyber attacks every single 
day for the technology they have. What do we do working forward 
on that?
    Mr. Estevez. Senator, cyber is not exactly my area. 
However, I share the concern. In fact, Secretary Kendall has 
asked me to lead a task force looking at exfiltration of data, 
not necessarily classified data but intellectual property, 
things that we care about, working with the industry to do 
exactly what you are asking about. It is a very serious problem 
for us and for our industrial partners.
    Senator Donnelly. Gentlemen, thank you very much for your 
time.
    Mr. Chairman, thank you.
    Chairman Levin. Before I call on Senator Ayotte, let me 
just remind you, Secretary Estevez, we have a new law on cyber 
incidents involving defense contractors. It was in our defense 
authorization bill. They must report those incidents to us. We 
insist that they do that, they comply with the law, but we also 
want to do that in the most cooperative and joint way we 
possibly can. We are on the same side of that issue, but there 
is now a law in place on defense contractors, now not on 
utilities and not on electric kind of utility issues and so 
forth, but on defense contractors there is. We would expect 
that you would remind them of that and fully implement that 
law.
    Mr. Estevez. Absolutely, Senator.
    Chairman Levin. Thank you very much.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I thank our witnesses for being here and your willingness 
to serve our country.
    I ask, first of all, Mr. Fanning about the provisions that 
require the Air Force to produce a statement of DOD's budgetary 
resources by September 30, 2014, so that the Department can be 
audit-ready. Are you committed to doing that?
    Mr. Fanning. I am, Senator, yes.
    Senator Ayotte. Okay, good. I wanted to be clear because 
the questions you were asked in the written questions made it 
seem like it was a goal. It is now the law as passed by the 
2013 defense authorization, and so this is a very important 
issue. I think that it is an important issue as we look at the 
fiscal challenges facing the country and also, in particular, 
the Department of Defense so that we can have the audit to have 
good financial information to make good decisions. So I 
appreciate your commitment to that important issue.
    I wanted to ask Assistant Secretary Estevez about 
contracting, in particular, a concern that I have had. I had 
the privilege of visiting Afghanistan in January and meeting 
with Major General Longo and talking with him about contracting 
in Afghanistan. Previously I had worked with Senator Brown to 
introduce the ``no contracting with the enemy'' language that 
allowed us to cut off funds that were going to our enemies in 
Afghanistan. In fact, I think the Wartime Contracting 
Commission found that as much as $60 billion of U.S. Government 
contracting funds had either been wasted or misspent, if you 
combined Iraq and Afghanistan.
    One of the things Major General Longo said to me when I was 
in Afghanistan is we need additional tools to be able to make 
this legislation even more effective. It struck me also that 
this is legislation and tools that would allow DOD, when they 
are in contingency circumstances--should be able to cut off 
funds to enemies or to those who are cooperating against us.
    I plan to work with Senator Blumenthal to introduce 
legislation to give you additional tools to cut off funds to 
our enemies and to cut off funds to those we are worried about 
going to corruption, other means that we would not want 
taxpayer dollars going. I think this is an authority that 
should be expanded beyond Afghanistan, and I want to get your 
thoughts on that.
    Mr. Estevez. I appreciate that, Senator Ayotte. First of 
all, I want to commend Major General Longo. I worked very 
closely with him and Task Force 2010 and what they are doing 
there.
    We would love to work with you on expanding those 
capabilities and tools. We do want to make sure that we have 
due diligence for our contractors when we do that. Obviously, 
the authorities under A-41 use some extraordinary capabilities, 
using classified information, for example, to not contract with 
the enemy, and we want to make sure that we do not contract 
with the enemy worldwide. I would be happy to work with you on 
expanding that.
    Senator Ayotte. I appreciate it. Actually one of the 
problems that Major General Longo described to us was the fact 
that right now the way A-41 is working, we are only looking at 
unclassified information, and in fact that we need to actually 
come up with a smarter way because you may have classified 
information that tells you someone is an enemy. But if we are 
only relying on unclassified, we are actually not cutting off 
the full measure of people who are contracting with the enemy.
    I look forward to working with you on this. This is a way 
we can make sure that taxpayer dollars do not go in the wrong 
hands.
    I also wanted to ask Mr. Vollrath, you had said a statement 
about sequestration. I believe that Senator Inhofe had asked 
you a question about it, about the civilian impact as a result 
of sequestration. You said that it would help to move the money 
around but it does not solve, as I understood what you were 
saying, the full problem.
    Can you, everyone on this panel, help me understand? Even 
if we give you the authority to move the money around, does it 
solve the impact of what the Department of Defense is going to 
undergo in terms of sequestration? I would particularly ask 
with regard to our readiness.
    Mr. Vollrath. Senator, the way sequestration is currently 
configured, the cuts have to go basically equitably across all 
of the programs. When we are faced with a $45 billion to $46 
billion reduction to take in 6 or at most 7 months----
    Senator Ayotte. As I understand it, the Office of 
Management and Budget has estimated that equates to about 13 
percent over the 2013 period.
    Mr. Vollrath. I will accept that, certainly. I have not 
taken the time to focus on that. I have been focused on the 
impact on the personnel and the resultant impact, as you 
correctly point out, on readiness because when you furlough, of 
that $46 billion--$45 billion reduction, you have to take it 
somewhere. As I mentioned earlier, we are trying, as best as 
possible, to not take it out on the backs of the workforce. So 
furloughing for up to 22 days, that is only about $5 billion of 
that $45 billion. There is a lot more that needs to be done.
    When you take that kind of reduction, particularly in the 
civilian workforce, of what amounts to about a 9 percent or for 
them a 20 percent reduction in their pay and furlough 1 day per 
week--that is basically what that amounts to--there will be an 
impact on readiness. You cannot get the same amount of work 
done that you would normally get done in 10 days in the 
equivalent of 8. It does not work that way unless you want to 
ask the civilian workforce to do things that they ought not to 
do. So there is going to be an impact at the depot maintenance 
level. There will be an impact in the service level no matter 
how you slice it.
    Now, could it be less? I think that is the point. It might 
be possible that it could be less. But I do not believe under 
any circumstances that we could not take some of that impact in 
our workforce.
    Senator Ayotte. Secretary Estevez, just to put the question 
to you, so if we give you--right now it is an across-the-board 
cut. Right? You have to cut everything. If we give you the 
flexibility--we have been hearing from the Department of 
Defense. This is the fundamental question. We have been hearing 
from them. Secretary Panetta, it is going to undermine our 
national security for generations. I had Chairman Dempsey here 
less than a week ago or roughly a week ago and he told me on a 
scale of 1 to 10, it was a 10 in terms of our national 
security.
    So as someone who wants to resolve this and respects that 
the chairman wants to resolve this in a way that is consistent 
with protecting our country, if we gave you all the flexibility 
in the world--let us say we did not do it across the board--
where does that leave you there? I think that is an important 
question to be answered.
    Mr. Estevez. Thank you, Senator Ayotte. A couple things.
    One, it is more than just sequestration. It is the 
Continuing Resolution that is causing much of the problem. 
Passing an appropriation bill or at least giving us the 
flexibilities in a CR is critical for us going forward. Number 
one.
    Sequestration, the $46 billion, I do not think at this 
point in the year additional flexibilities there give us what 
we need. We will get some of that within the CR, but at this 
point in the year to find that $46 billion, I believe as Dr. 
Carter said when he was up here 2 weeks ago, we are going to be 
looking everywhere we can to get that money.
    Senator Ayotte. I mean, we have legislation pending that 
deals with flexibility, and so what I want to understand is if 
we pass this legislation, does that stop the impact on our 
national security or does that mitigate it so it is a 
manageable amount of impact on our national security? That is 
certainly what I would appreciate your advice on.
    Mr. Estevez. It will not stop it. Taking $46 billion again 
at this point in the year is not going to stop the impact on 
our national security. I think giving us the flexibilities or 
passing a 2013 budget for the Department of Defense and making 
sequestration go away for 2013 is the only way to really stop 
the impact on our national security. Obviously, past that, 
flexibilities may but we will be taking money from everything. 
So there is going to be a devastating impact to our security.
    Senator Ayotte. Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Congratulations on your nominations. It is good to be with 
each of you today.
    Just a few questions, and I would like to start with Mr. 
Vollrath, please, on some personnel issues that I am interested 
in the thought process now within DOD, particularly about use 
of the Guard and Reserve.
    I had an interesting experience last week visiting a Guard 
unit in Stanton, VA, called the Stonewall Brigade that is quite 
large. I was interested when I found out that their first 
operations as a brigade were 20 years before the French and 
Indian wars. They go back to 1740 and they can trace the 
lineage back that far.
    In my discussions with these guardsmen and women and many 
during the time I was Governor and was Commander of the 
Virginia Guard, it really struck me that the Guard and Reserve 
are quite different than they were 10 or 15 years ago, that the 
level of training, the level of operational experience has 
dramatically increased. That made me start to think about 
forward-focused personnel planning and how much do we do with 
the Active Force, and there is a training cost to that. How 
much do we do in terms of putting in training monies to keep 
the Guard at this new kind of elevated level of readiness? I am 
just kind of interested in your discussion about that looking 
at personnel and the kind of overall manpower needs of our 
defense, how the Guard and Reserve are factoring in, in a new 
way, and how you factor that in going forward as you evaluate 
manpower needs.
    Mr. Vollrath. Senator, the Guard and Reserve are critical 
to our projected readiness. The Guard and Reserve, as you know 
having served as Governor, are now an operational force. They 
are no longer that last resort, that strategic reserve if you 
will. They are fundamental to how we fight. So on a go-forward 
basis, it is critical that they be maintained and sustained for 
our long-term readiness.
    Having said that, with their experience as an operational 
force, it is also key to readiness that we retain as many 
people that we can possibly in the Reserves that have that 
experience because once we lose that experience, then we 
significantly have to start ramping up retraining.
    So right now, I would tell you that is a national treasure 
and they are key to our national defense right now, far from 
being that old strategic reserve. To the Reserve and Guard, 
give them credit. They have stepped up to the plate.
    Senator Kaine. Going forward, there is no intent from a 
planning perspective that the Guard would revert back to just a 
pure Reserve function, but there is a thought that going 
forward we would make the investments in Guard and Reserve to 
keep them at an operational level of training and readiness?
    Mr. Vollrath. That appears to be a prudent way forward. We 
have the Quadrennial Defense Review (QDR) coming up in this 
next year, and in that process, we will sort out exactly how we 
are going to move forward. But I do not know how we do it 
without.
    Senator Kaine. Just thinking forward, if as part of that 
QDR, the decision is made we want to keep Guard at sort of an 
operations and not just a pure reserve asset and we want to put 
the training in to do that, then that would also affect other 
decisions about manpower levels in the Active branches because 
to the extent that Guard is at operational level, those numbers 
can provide some of the function so that it does factor into 
manpower planning in the Service branches as well.
    Mr. Vollrath. Absolutely, Senator. It has to be a balanced 
approach to it. As we shift from contingency operations to the 
more full-spectrum on a go-forward basis, then we are going to 
have to sort out very finitely exactly how that force is going 
to be structured to do that. That is different from the last 10 
years, as you can appreciate.
    Senator Kaine. In making sure that the Guard maintains that 
desired state going forward, that makes things like retention 
and the training of guardsmen and reservists--ongoing 
training--absolutely critical.
    Mr. Vollrath. Absolutely, Senator.
    Senator Kaine. In my discussions with the Stonewall 
Brigade--and I was asking them about sequester and some of 
these budgetary challenges--the one thing that they were most 
concerned about was effects on training, the backing up of 
assigned training slots at various training facilities where 
they would go, oh, we are going to go next year, not this year 
or we are going to do it at home rather than go to the slot. 
The commander said if I have to put people into an operational 
capacity, I want them to be 100 percent ready and not 85 
percent ready. The potential degradation in training was what 
was cited as their greatest concern right now.
    But anyway, it is helpful to hear your thoughts on that.
    Let me ask Secretary Estevez, and forgive me if this has 
been asked. But in the acquisition space, I would assume that 
the combination of sequester and CR, anything short of 
appropriations bills and normal budgets, imposes some 
inefficiencies in the contracting process because you can find 
more efficiencies, the greater their predictability, volume, 
multi-unit purchases, et cetera. I would suspect that some of 
the short-term savings we might be trying to obtain through 
something like sequester actually may work to our long-term 
disadvantage even on the savings side.
    Mr. Estevez. That is true, Senator.
    Senator Kaine. Could you give some examples of that?
    Mr. Estevez. The acquisition system is kind of seized up 
right now. In fact, the Department as a whole is seized up in 
all kinds of contracts. I will speak just for what we are doing 
inside the Office of the Secretary of Defense. We are not 
letting any contracts. That means contracts to service--the 
SAIC types of the world or RAND or whoever. So they cannot plan 
their line.
    Now, if we go to the industrial side--and you know what is 
going on in the shipyards as we cancel availabilities--when we 
start taking out of budget planned buys for things like the 
Joint Strike Fighter, that is going to increase the unit cost 
of those airplanes because you are not buying as many as you 
planned. That is not just something like the Joint Strike 
Fighter that is in early production. That is things like 
Apaches and Chinooks and anything that we are buying as we 
start to take those dollars out. That does not mean that that 
decreases the need because we still need those airplanes. So we 
are going to pay more to get the same plane that we could have 
if we had moved along through our budget and dropped whatever 
that capability is. It is an inefficient way of doing business. 
Our industrial base cannot plan for what they are doing. They 
are also making their own assessments. It is not a good way.
    Senator Kaine. Let me just follow up with one question to 
follow up on Senator Ayotte's question about potential 
flexibility because you raised a point that I do not think 
everyone completely understands. Being already pretty far into 
a fiscal year, you at DOD have been planning around this kind 
of ugly, non-strategic, across-the-board cuts. Everybody would 
agree that is not the way we should do it, but nevertheless you 
have been planning around how to do it, and we are pretty far 
into the fiscal year.
    If suddenly the rule were to change and you do not have to 
do that, you have the flexibility now and then you would get 
some time to come up with flexible cuts and now we are farther 
into the fiscal year, I gather that there would be some effort 
that those cuts would have to be presented from the White House 
back to Congress and have Congress look at them and decide, and 
now we are farther into a fiscal year. Time is of the essence 
in terms of managing cuts of this size by this time in the 
fiscal year. Is it not?
    Mr. Estevez. Absolutely, Senator. Of course, there are 
differences within the investment accounts where we are buying 
things that Congress has asked us to buy or that we asked 
Congress to help us authorize that you authorized in NDAA for 
Fiscal Year 2013. In the operation and maintenance accounts, 
where we have to pay for the war, we are going to pay for what 
our forces need forward. It is just a complete freeze-up 
because you have to push money through those things. So giving 
us this flexibility, while we take the time to replan, 
essentially means you go along with the plan that you have.
    Senator Kaine. Yes.
    No further questions. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Kaine.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman. Let me begin 
by thanking the chairman for having a hearing on March 13 
concerning sexual assault in the military, and I expect and 
trust that all of you will cooperate and aid us in this very 
important hearing and the effort to further protect against 
this truly predatory, criminal action that is all too common 
still, even after some good faith efforts by the military to 
stop it.
    I want to also begin by thanking each of you and your 
families for your service to our Nation and for what you have 
done in the past and what you will do in the future and hope 
that this committee and I personally can be of assistance to 
you.
    On the issue of contracting with the enemy, I know Senator 
Ayotte has raised the issue already. She and I have been 
working on revisions to the current prohibitions to impose 
tougher penalties and also to streamline the potential 
investigation and prosecution and extend them to Departments 
other than Defense. So I appreciate your cooperation in that 
effort as well.
    I want to begin on the Joint Strike Fighter, if I may. I 
know Senator McCain has raised it with you, and all of us are 
fully and passionately in favor of a better procurement 
process. I hope that we can work together on improving that 
process so as to cut costs and streamline the procurement and 
acquisition process.
    But as to the Joint Strike Fighter, the F-35, do you agree 
with Lieutenant General Bogdan's remarks on that issue?
    Mr. Estevez. I cannot speak for Lieutenant General Bogdan 
who has the daily relationship with Lockheed and Pratt on that 
contract. I can appreciate his frustration, and any PEO's 
frustration is that we are trying to get the best value, best 
buy for our dollar, and best capability for the taxpayer. That 
puts some tension in the relationship with any contractor. We 
do expect our contractors and want to hold them accountable and 
will hold them accountable to produce.
    Senator Blumenthal. I agree completely that they should be 
held answerable and accountable for the quality of the product 
and costs and so forth.
    There is no question in your mind that this Nation is 
committed to the F-35. Is there?
    Mr. Estevez. No, there is not.
    Senator Blumenthal. That the procurement and acquisition of 
that plane really require us to remain, as much as possible, on 
schedule in buying the airplane because that is the best way to 
reduce the cost per unit?
    Mr. Estevez. That is correct, Senator, though we would also 
say we have flattened our buys as we work through some of the 
issues that, to most extents, have been resolved, but we do 
have some testing. A little less than 50 percent of the testing 
is completed. There are some issues that need to be worked, and 
before we ramp up production, we want to ensure that we are 
getting the plane that we are paying for.
    Senator Blumenthal. The effort to test and improve the 
airplane really requires a close working relationship. Does it 
not?
    Mr. Estevez. It does, Senator. It is not just at the 
General Bogdan PEO level. We are working that up to the 
Secretary level inside the Department.
    Senator Blumenthal. My hope is that Lieutenant General 
Bogdan's remarks do not reflect the general attitude in terms 
of what that relationship has been or should be because I know 
that American taxpayers would be disappointed if they believed 
that somehow these contractors were in some way being 
disingenuous, as I think those remarks imply. I am not sure 
that the Department of Defense would agree with Lieutenant 
General Bogdan in that implication.
    Mr. Estevez. Again, I am not going to try to speak for 
General Bogdan. He and I have not talked about the remarks as 
reported in the newspaper. He is traveling in the world at the 
moment.
    We need and we strive to have and I believe we do have a 
strong relationship with the defense industrial base to include 
Lockheed and Pratt.
    Senator Blumenthal. My own view, for what it is worth, is 
that that relationship perhaps could be improved, and I hope 
that you will endeavor to improve it, but that these remarks do 
not reflect even the relationship as it stands now because I 
think there are very complex and challenging issues related to 
the development of this new aircraft that we have a common 
interest in solving without the kind of tension that could be 
exacerbated by these remarks. I have great respect for 
Lieutenant General Bogdan. I am not being critical of him. As 
you say, these remarks were reported in the newspaper, but I 
know that Pratt & Whitney is fully committed to solving the 
technical issues and to providing the best value to the 
Department of Defense and the American taxpayer.
    Mr. Estevez. I appreciate that, and frankly I believe that 
Lieutenant General Bogdan would agree with you on that.
    Senator Blumenthal. Thank you.
    If I may ask Mr. Fanning. I know that the issue of suicide 
in the military has been raised and I know that the Department 
of Defense is endeavoring to address these issues very 
responsibly.
    My understanding is that civilian insurance companies have 
the capability to look at lifestyle indicators, for lack of a 
better word, facts about a person's lifestyle that provide some 
indication about the possible tendency towards suicide. In 
light of the very alarming statistics--and I know that 
``epidemic'' is a vastly over-used term in the Nation's 
capital, but certainly it is an alarming trend--I wonder 
whether the Air Force has been able to make use of practices in 
the civilian world by insurance companies to use those 
indicators to identify people who may be more at risk.
    Mr. Fanning. Thank you, Senator.
    I think across the Department of Defense, there has been an 
enterprise perspective or attempt to make use of those 
indicators. We know, for example, that financial issues, 
relationship issues, legal issues have a higher correlation to 
suicide than even deployment schedules. I think the answer is 
yes, and if confirmed into the Air Force, taking care of the 
men and women who volunteered to serve would be the highest 
priority I would think in my job and that would be one of the 
things I would look at much more closely.
    Senator Blumenthal. I just want to say--and I thank you for 
that comment--my own view is that our people are our greatest 
asset. As magnificent and amazing as the Joint Strike Fighter 
is and all of our hardware, all of our weapons systems, the 
people are still our greatest asset, and the more we can do to 
attract and retain the very best by showing that we not only 
care about them but we are willing to do something about it is, 
I think, one of the great challenges ahead. It is one of the 
reasons that I voted for Senator Hagel to be our next Secretary 
of Defense because I think he is truly committed and passionate 
about men and women in uniform and about our veterans. I would 
just urge--you do not need my urging, but offer my help in any 
way possible in any of those personnel issues that you may face 
in your next job, assuming you will be confirmed as I expect 
you will be.
    Thank you, gentlemen, for your service to the Nation.
    I thank you, Mr. Chairman. That concludes my questions.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator King.
    Senator King. Thank you, Mr. Chairman.
    A few quick questions to each of you, some fairly specific, 
and I will be submitting some questions for the record, Mr. 
Chairman.
    Chairman Levin. That will be fine.
    Senator King. Mr. Fanning, we were disappointed and 
somewhat surprised when Bangor, ME, was not selected as even a 
potential base for the KC-46. What do you see for the future of 
refueling? Is the KC-135 fleet a part of the future? My concern 
is, obviously, that if the KC-46 is going to be the future of 
refueling, I wonder about the future of the 101st wing in 
Bangor. Can you talk to me about that?
    Mr. Fanning. Not having been confirmed yet, Senator, I have 
not been a part of those deliberations or the process by which 
the Air Force decides its basing for the new tankers. But if 
confirmed, just the timing of these announcements would make it 
a first priority for me, and I would get back with you and your 
staff to provide you more information on that.
    Senator King. I hope you will because the 101st has done a 
spectacular job over the last 10 or 15 years, given the 
demands. I would hope that would be part of the future. Okay. 
There will be some other questions for the record.
    Mr. Estevez, on procurement, one of the real problems that 
we are facing right now with the Continuing Resolution and the 
sequester is the loss of multi-year procurement contracts. It 
is bad for the taxpayers because you lose the benefit of multi-
year buys, and it is also terrible for the industrial base. 
Will you work with us on these? In the authorization bill, we 
have a multi-year procurement, for example, to take just--it 
pops into my head, the 10-year DDG-51 procurement. How do you 
see this as we get through this budget situation?
    Mr. Estevez. I would agree with you.
    Senator King. That was the right answer. [Laughter.]
    Mr. Estevez. We have asked for those authorities to proceed 
with those multi-years.
    Now, if there is no money, that presents a problem for any 
procurement, to tell you the truth, because we will have to 
look at what is available in those accounts. But we have asked 
for in our appropriation bill--and hopefully we will get one--
authority to do those multi-years.
    Senator King. As I understand, the Appropriations Committee 
bill that is ready to go has the multi-year procurement in it. 
Is that your understanding? Out of the committee?
    Mr. Estevez. The version that is out, yes.
    Senator King. Changing the subject slightly, what is your 
assessment of our logistical readiness for the drawdown in 
Afghanistan? It is not going to be easy to get all that 
materiel out of there. Where do we stand on that front?
    Mr. Estevez. It is a fantastic challenge for the logistics 
system. It is absolutely executable. It is going to be much 
more difficult than the drawdown from Iraq. Afghanistan, just 
from a geography standpoint, is a landlocked country. It does 
not have the infrastructure that Iraq had. Nevertheless, our 
logistics system is up to the task and we will be able to 
execute the drawdown and remove our equipment from Afghanistan, 
as well as our people, of course.
    Senator King. It certainly is going to be a challenge 
because there is no access by sea.
    Mr. Vollrath, I had a colloquy with now Secretary Hagel. 
When I meet with veterans in Maine, particularly the recent 
people who have left the Service, one of the biggest problems 
they find is the lack of information. It is a complicated 
system with the Veterans Affairs (VA) and Defense Departments 
and all the different programs and what is available, what they 
can access, how they do it. You folks have an extensive network 
of recruiters who bring people in. I would like you to consider 
and suggest a similar reciprocal program to help people when 
they leave. Out-placement services is, in effect, what I am 
suggesting. That was the number one problem that the veterans 
brought to me when I was discussing this issue with them last 
summer.
    Do you have any thoughts about this?
    Mr. Vollrath. Yes, I do, Senator. First, let me say thank 
you to Congress for a law that was passed called the Vow to 
Hire Heroes Act. That law stipulated that the Department of 
Defense would set up a very robust transition assistance 
program with the help of the Department of Labor and the 
Department of Veterans Affairs. That transition assistance 
program, as defined in law, has been put in place. Let me 
describe the depth of that.
    First, the Department of Defense will set up 100 percent of 
every servicemember leaving Active Duty with a plan ahead.
    Second, as part of that out-processing or that transition 
process, that servicemember will receive up to 4 days of 
transition assistance from the Department of Labor so that they 
understand how to create a resume, they know how to interview, 
and the Department of Labor will then give what is now termed a 
warm hand-off to that servicemember to the community to which 
they say they are going so that they have the name of a person 
in the Department of Labor establishment in that locale that 
they, in effect, can report to get the help.
    The third part is the Veterans Administration. The VA has 
up to 2 days with each of the persons separating to inform them 
as to what their benefits are that can be provided by the 
Veterans Administration in their totality, and probably most 
important, sign them up before they leave for those benefits 
and, like with the Department of Labor, create the warm hand-
off for that servicemember with a name in the community for the 
Veterans Administration to which the servicemember intends to 
go.
    In addition to that, we are instituting a three-pronged 
voluntary session that each servicemember may avail themselves 
of, if they wish. One is to help them apply for school fully, 
if they want to go to college or to some trade school. We will 
help them with the application and everything they need to get 
on board.
    Second, if they want to go to a trade school and get that 
type of training, then the Veterans Administration, before they 
leave, will also give them that capability and provide them 
with a place to go and get that training that they desire.
    The third has to do with the Small Business Administration 
(SBA). The SBA has stepped up to the plate and they also are 
providing to any servicemember that is departing a 4-day course 
on how to be an entrepreneur to start a small business. That is 
key, we believe and so does the SBA, because as you all know, 
most of the jobs are created by small business in America.
    So not only are we helping them transition, we are trying 
to provide them the full measure of transition back into the 
community. So your suggestion, Senator, I take fully and will 
definitely run with it.
    Senator King. It sounds like all the thinking is there. I 
just hope that the execution matches the vision. Thank you very 
much.
    I want to talk about rising personnel costs, but we will do 
that on questions on the record. My time has expired.
    Thank you, gentlemen, for your answers.
    Chairman Levin. Thank you very much, Senator King.
    Just on that last question of Senator King, is there a 
simple brochure which lays out each of those five points?
    Mr. Vollrath. I do not have a simple brochure that does 
that, but I have an information paper that does that.
    Chairman Levin. Can you put together a brochure which you 
could get to all the Members of Congress and then hopefully to 
all the servicemembers who are leaving which describes what 
efforts are being made to help them transition so that at one 
place every one of our servicemembers who is leaving can see 
this is what the Department of Defense is doing, this is what 
you can expect? Because I think that what Senator King has 
raised is something which is really very much on all of our 
minds. I think he has really targeted something which we hear 
an awful lot about.
    Earlier today, Mr. Vollrath, I talked to you about what the 
VA program is in one community college in my home State which 
actually, apparently in a unique way, has a program which 
veterans come to from around the country now that will help 
give them credit for the work that they have done, the skills 
that they picked up in the military and gaining early 
certification from States for that particular skill whether 
they are going to become a nurse or a medical assistant or a 
truck driver with skills, whatever it is, whatever the skills 
they gained in the military, that they do not have to duplicate 
them and go through a 2-year program or a 1-year program when a 
3-month program is all they need in order to qualify and to 
smooth the way through the certification being done in advance 
for them through the State agencies which have to certify those 
skills before they can operate.
    So that point which Senator King has gone through with you 
is really a very significant part of what all of us I hope and 
know are about. When you are confirmed or even before--but that 
should come pretty quickly--work on that very simple one-pager 
that could go on a website and can be printed out and handed to 
those of us who still read.
    Mr. Vollrath. Will do, Senator.
    Chairman Levin. The printed word I should say.
    Do any of my colleagues have any additional questions?
    Senator King. My only comment, Mr. Chairman, based upon 
what you just said and I alluded to it--in my experience, 
execution is as important as vision. This is really how it is 
executed on the street with these guys, men and women, as they 
leave. That is critically important because this is what we are 
hearing at home. Thank you.
    Chairman Levin. Thank you all. We thank you, our nominees. 
We look forward to your speedy confirmation and we thank you 
and your families and friends who are here for your service and 
their support of you in that endeavor. Congratulations.
    We will stand adjourned.
    [Whereupon, at 11:17 a.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Alan F. Estevez by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not see the need for modifications to any of the 
Goldwater-Nichols Act provisions at this time. The Goldwater-Nichols 
Act has cultivated jointness within the Department of Defense (DOD) and 
has outlined appropriate responsibility to senior leaders within the 
acquisition and logistics community.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.
                                 duties
    Question. Section 133a of title 10, U.S.C., describes the role of 
the Deputy Under Secretary of Defense for Acquisition and Technology 
(DUSD(AT)).
    Assuming you are confirmed, what duties do you expect that the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L) will prescribe for you?
    Answer. If confirmed, I expect the USD(AT&L) will assign me duties 
supporting the roles and missions assigned to him by the Secretary of 
Defense.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have over 30 years of experience working in defense 
establishments. For the last 6 years, I have operated at the most 
senior levels within the Office of the USD(AT&L), the last 2 as the 
Assistant Secretary of Defense for Logistics and Materiel Readiness 
(ASD(L&MR)). Prior to that, I was the Principal Deputy to that position 
for 5 years. For the last year, with the Principal Deputy AT&L position 
vacant, I have assisted the USD(AT&L) in managing the full gamut of 
AT&L issues and responsibilities to include not only acquisition, 
technology, and logistics matters, but also industrial base issues, 
installation and military construction issues, and operational energy 
issues. I have a proven track record as a skilled manager who is able 
to execute programs to completion and manage change. I have managed 
complex programs across the defense enterprise, and have worked issues 
at senior levels across the Federal Government, with Congress, and with 
industry. I have led the defense logistics enterprise and directed 
support to our forces in the field as we surged and subsequently drew 
down in two wars. Simultaneously, I led efforts to lower the costs of 
logistics. I have played a key role in driving our rapid acquisition 
support in both Iraq and Afghanistan and ensured the delivery and 
sustainment of critical capabilities, such as the Mine Resistant Ambush 
Protected (MRAP) vehicles. I have provided direct oversight to the 
Defense Logistics Agency (DLA), a $50 combat support agency, as it has 
supported our deployed forces, our organic industrial depots, and the 
American people in disaster relief operations, to include Super Storm 
Sandy. I have led the DOD efforts to ensure life cycle costs are 
considered early in major acquisition programs. In short, I have proven 
my skills in overcoming bureaucratic hurdles to provide needed 
capabilities to our warfighters at best value for our taxpayers.
    Question. Do you believe that there are any additional steps that 
you need to take to enhance your expertise to perform these duties?
    Answer. I believe that my expertise qualifies me to perform the 
duties of the Principal Deputy Under Secretary for Acquisition, 
Technology, and Logistics (PDUSD(AT&L)), and that no further steps are 
needed.
    Question. Do you believe that any significant changes should be 
made in the structure and decisionmaking procedures of DOD with respect 
to acquisition matters?
    Answer. No. I believe that the structure and decisionmaking 
procedures of the DOD with respect to acquisition matters are sound and 
efficient, and I do not advise making any changes.
                             qualifications
    Question. If confirmed, you will be responsible for assisting the 
Under Secretary in the management of an acquisition system pursuant to 
which DOD spends roughly $400 billion each year.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I have over 30 years of experience operating in the defense 
establishment, including 10 years as a Senior Executive. Over the last 
6 years, I have worked at the most senior levels within the Office of 
the Secretary of Defense. For the last 4 years, I have been responsible 
for leading the defense logistics enterprise, providing superb support 
to our warfighters engaged in combat operations while simultaneously 
lowering the cost of logistics operations. I have assisted the past 
three USD(AT&L)s in executing key programs, including enhancing our 
acquisition life cycle management capabilities and oversight, 
strengthening our nuclear parts management and oversight, executing 
operational energy support to provide battlefield flexibility, and 
driving the rapid acquisition process to provide and sustain 
capabilities, such as MRAP vehicles to support our deployed forces. I 
have played a key role in driving efficiencies in our budget, and in 
properly managing the Department's budget execution, to include 
supporting our efforts to achieve auditability. I am a proven leader 
who has demonstrated the skills to manage complex programs and lead 
change when necessary.
    Question. What background or experience, if any, do you have in the 
acquisition of major weapon systems?
    Answer. I have been a senior leader in the Office of the USD(AT&L) 
for the last 6 years, and I have been an advisor on the Defense 
Acquisition Board during that time. I have had input to every major 
defense weapon system acquisition program over that time period. I have 
been the leader in our efforts to strengthen the Department's policies 
to ensure sustainability and life cycle costs are considered in defense 
programs, and I am responsible for the ensuring life cycle sustainment 
projections are discussed as part of the acquisition process. I 
initiated the requirement to make the development of a Life Cycle 
Sustainment Plan part of a Program Manager's responsibilities, and I 
worked with Congress to designate a Product Support Manager as key 
program management leader. I have also been a key leader in the 
Department's rapid acquisition efforts in support of our warfighters. I 
played a key role in the acquisition, fielding, and sustainment of the 
MRAP Family of Vehicle program, and led efforts to ensure that the 
vehicles could be sustained in the field. I also helped to drive the 
requirements for the rapid acquisition and fielding of the lighter MRAP 
All-Terrain Vehicle (MATV) and the MRAP wrecker. I have a proven track 
record of strong, common sense management and the ability to manage and 
oversee change. These skills will be necessary to manage an acquisition 
system in an era of declining resources.
                             relationships
    Question. In carrying out your duties, what would be your 
relationship with:
    The Secretary of Defense.
    Answer. If confirmed, I will support the Secretary of Defense's 
priorities in acquisition, technology, and logistics.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would support the Deputy Secretary's 
priorities and direction in matters of acquisition, technology, and 
logistics.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed, I will serve as the principal advisor to 
USD(AT&L). In this role, I will support USD(AT&L) in his priorities and 
duties and provide counsel, when needed.
    Question. The other Under Secretaries of Defense.
    Answer. If confirmed, I will work with USD(AT&L) to coordinate 
actions with the other Under Secretaries to best serve the priorities 
of the Secretary of Defense.
    Question. The Deputy Chief Management Officer of DOD.
    Answer. If confirmed, I will assist USD(AT&L) in support of the 
Deputy Chief Management Officer in the improvement of business 
operations of DOD.
    Question. The DOD General Counsel.
    Answer. If confirmed, I will support USD(AT&L) in working with the 
General Counsel to ensure AT&L actions are legally and ethically within 
regulations and appropriate statutes.
    Question. The Director of Operational Test and Evaluation.
    Answer. If confirmed, I will support USD(AT&L) in his work with the 
Director of Operational Test and Evaluation to ensure appropriate 
oversight for major defense acquisition programs to assure that 
acquisitions systems are effective and suitable for combat.
    Question. The Director of Cost Assessment and Program Evaluation.
    Answer. If confirmed, I will work with USD(AT&L) and the Director 
of Cost Assessment and Program Evaluation (CAPE) to support CAPE's 
efforts in providing the Department with independent cost analysis and 
resource assessments for defense acquisition programs.
    Question. The Assistant Secretary of Defense for Acquisition.
    Answer. If confirmed, I will assist the USD(AT&L) and the Assistant 
Secretary of Defense for Acquisition in providing oversight of Defense 
acquisition systems and programs while taking into consideration life 
cycle management costs.
    Question. The Assistant Secretary of Defense for Research and 
Engineering.
    Answer. If confirmed, I will work with USD(AT&L) and the Assistant 
Secretary of Defense for Research and Engineering to ensure DOD 
develops and incorporates latest technology and innovative capabilities 
while aiming to reduce cost and risk.
    Question. The Assistant Secretary of Defense for Logistics and 
Materiel Readiness.
    Answer. I currently serve as the Assistant Secretary of Defense for 
Logistics and Materiel Readiness (ASD(L&MR)). If confirmed, I will work 
with the incoming ASD(L&MR) and USD(AT&L) to provide oversight to DOD 
logistics programs operations.
    Question. The Assistant Secretary of Defense for Operational Energy 
Plans and Programs.
    Answer. If confirmed, I will support USD(AT&L) in his work with the 
Assistant Secretary of Defense for Operational Energy Plans and 
Programs to ensure support to the warfighter on the battlefield through 
energy planning and innovation while mitigating risks and costs.
    Question. The Assistant Secretary of Defense for Nuclear and 
Chemical and Biological Defense Programs.
    Answer. If confirmed, I will assist USD(AT&L) in his work with the 
Assistant Secretary of Defense for Nuclear and Chemical and Biological 
Defense Programs to protect the United States from nuclear, chemical, 
and biological threats.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict.
    Answer. If confirmed, I will assist USD(AT&L) and the Assistant 
Secretary of Defense for Special Operations and Low Intensity Conflict 
in their work to provide rapid capabilities to support special 
operations, counter-narcotics, and stability operations.
    Question. The Deputy Under Secretary of Defense for Installations 
and Environment.
    Answer. If confirmed, I will work with the USD(AT&L) and the Deputy 
Under Secretary of Defense for Installations and Environment to provide 
installation services that are cost-effective to support the 
warfighter.
    Question. The Deputy Assistant Secretary of Defense for 
Developmental Testing.
    Answer. If confirmed, I will work with USD(AT&L) and the Deputy 
Assistant Secretary of Defense for Developmental Testing to ensure that 
independent developmental testing assessments are used in informing 
acquisition decisions.
    Question. The Deputy Assistant Secretary of Defense for System 
Engineering.
    Answer. If confirmed, I will assist USD(AT&L) in his work with the 
Deputy Assistant Secretary of Defense for Systems Engineering to ensure 
effective systems engineering throughout the life cycle of Major 
Defense Acquisitions Programs, and to identify early and address 
systems engineering gaps and deficiencies.
    Question. The Director of Program Assessment and Root Cause 
Analysis.
    Answer. If confirmed, I will support USD(AT&L) in directing the 
Director of Program Assessment and Root Cause Analysis to ensure 
comprehensive performance assessments are conducted on all Major 
Defense Acquisition Programs and that cost and performance issues are 
identified and resolved as early in the acquisition Milestone timeline 
as possible.
    Question. The Acquisition Executives in the Military Departments.
    Answer. If confirmed, I will work with USD(AT&L) and the Service 
Acquisition Executives to ensure effective oversight and transparency 
of acquisition programs. Additionally, I will support USD(AT&L) and 
Service Acquisition Executives to share best practices and incorporate 
these strategies throughout acquisition programs in the Department and 
other Service branches.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. If confirmed, I will work with USD(AT&L) in his support of 
the Vice Chairman of the Joint Chiefs of Staff as an advisor to the 
Joint Requirements Oversight Council and a member of the Defense 
Acquisition Board. USD(AT&L) and I will support the Vice Chairman by 
ensuring that the requirements for acquisitions programs meet the 
services' missions and are cost-effective.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the USD(ATL)?
    Answer. The principle challenges I may face as the PDUSD(AT&L) will 
be providing needed capabilities to defend the country and maintain the 
best military in the world, as outlined in our Defense Strategy, in a 
time of declining resources. In the near term, the Nation is still at 
war, we face the challenge of sustaining and drawing down our forces in 
Afghanistan, an operation which will be significantly more difficult 
than our drawdown in Iraq. We also must be able to sustain our 
readiness across the globe and avoid the pitfalls of a hollow force. We 
must manage our acquisition programs and our spending to ensure we get 
the best capability needed at the right cost for the American taxpayer. 
As military spending declines, we must ensure that our industrial base 
remains strong and vibrant, and capable of producing the needed 
innovations to build future military capability. While ensuring we 
develop the capabilities for our future challenges, we must also 
incorporate and not forget our hard learned lessons from our 12 years 
at war, including our ability to rapidly meet warfighter needs and to 
manage contractors on the battlefield. Finally, we must ensure we have 
a workforce, both military and civilian, that is trained and motivated 
to address these challenges. These challenges are exacerbated by the 
current budget uncertainty and the specter of sequestration.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will support the USD(AT&L) to address these 
challenges.
    We will continue to provide our warfighters the capabilities they 
need today to be successful on the battlefield in Afghanistan, while 
also providing the policies and supporting the processes needed to 
successfully drawdown.
    We will continue to strengthen our management of the acquisition 
system under our Better Buying Power (BBP) initiative. We will work to 
control and reduce costs and provide affordable programs to meet our 
warfighters needs. We will continue to work with industry to provide 
appropriate incentives--and appropriate revenue--to drive higher 
productivity and stability, and we will work to identify, and protect, 
as necessary, our most fragile industry skills and capabilities. We 
will continue to drive changes in our doctrine and policy to 
incorporate our lessons related to rapid acquisition and contingency 
contract management. We will work to strengthen our workforce through 
training and development, and by rewarding good performance while 
holding people accountable for poor performance.
                        acquisition organization
    Question. Do you believe that the office of the USD(AT&L) is 
appropriately structured and staffed to execute its management and 
oversight responsibilities?
    Answer. Yes, I believe the office of the USD(AT&L) is appropriately 
structured to execute its management and oversight of responsibilities 
and will ensure that it remains so in the future. I believe we will 
make some adjustments as we restructure the Deputy Under Secretary 
positions as required by law.
    Question. Do you see the need for any changes in the relationship 
between the USD(AT&L) and senior acquisition officials in the Military 
Departments?
    Answer. No.
    Question. Do you see the need for any additional processes or 
mechanisms to ensure coordination between the budget, acquisition, and 
requirements systems of DOD and ensure that appropriate trade-offs are 
made between cost, schedule, and performance requirements early in the 
acquisition process?
    Answer. I do not currently see the need for any additional 
processes or mechanisms to ensure coordination between the budget, 
acquisition, and requirements systems of the Department. The Joint 
Requirements Oversight Council and the Defense Acquisition Board have 
helped to ensure this coordination. If confirmed, I will continue to 
support USD(AT&L)'s priority of using affordability caps to ensure 
appropriate trade-offs between cost, schedule, and performance 
requirements are made early in the acquisition process.
    Question. What do you believe should be the appropriate role of the 
Service Chiefs in the requirements, acquisition, and resource-
allocation process?
    Answer. The Service Chiefs should and do play an integral part of 
the requirements, acquisition, and resource-allocation process. The 
Service Chiefs requirements and resource decisions inform the 
professional acquisition workforce's acquisition decisions and are 
essential to ensuring that these acquisitions programs are successful 
from production to fielding and disposal. The Service Chiefs' 
leadership in the budget and requirements process ensures that the 
acquisition programs meet the needs of the Services, and are budgeted 
with the life cycle of the program in mind. I believe it is essential 
that our acquisition workforce work with the Service Chiefs to continue 
to make well-informed decisions.
    Question. What do you see as the potential advantages and 
disadvantages to giving the Service Chiefs authority and responsibility 
for the management and execution of acquisition programs?
    Answer. It is essential that our acquisitions workforce work in 
tandem with the Service Chiefs. We must recognize the fact that the 
Service Chiefs are often not acquisition professionals. Their thoughts 
and guidance are critical in the acquisitions process. However, the 
management and execution of programs should be done by acquisition 
professionals who have the necessary training, professional experience, 
and qualifications.
    Question. What do you believe should be the appropriate role of the 
combatant commanders in the requirements, acquisition, and resource-
allocation processes?
    Answer. Combatant commanders must identify requirements and 
capability needs, and they must play a key role in the resource-
allocation processes. If confirmed, I will reinforce USD(AT&L)'s goal 
of working with the combatant commanders in support of their 
acquisition needs to support wartime operations and evolving threats. 
The advice and input of the combatant commanders is needed to make sure 
that acquisitions programs meet their needs in strategic operations.
    Question. What improvements, if any, do you believe are needed in 
the lines of authority and accountability for the procurement of major 
weapon systems?
    Answer. I do not believe any improvements are needed in the lines 
of authority and accountability for the procurement of major weapons 
systems. The current process flowing from the Defense Acquisition 
Executive to the Secretaries of Military Departments to the Service 
Acquisition Executives and Program Executive Officers to Program 
Managers is successful so long as trained, competent leaders hold those 
positions. While I see no need for a current change to this structure, 
if confirmed, I will work with the USD(AT&L) to review the process to 
see if changes are needed in the future.
    Question. What steps if any will you take, if confirmed, to empower 
program managers to execute major defense acquisition programs and hold 
them accountable for how well their programs perform?
    Answer. Empowering program managers to effectively and efficiently 
execute major defense acquisition programs is a priority for USD(AT&L) 
and, if confirmed, I will support USD(AT&L) in this goal. Section 853 
of the National Defense Authorization Act (NDAA) for Fiscal Year 2007 
and its subsequent modifications in section 814 of the NDAA for Fiscal 
Year 2009 required the Department to enhance the role of Program 
Managers in developing and implementing acquisition programs. The 
Department has developed a strategy to better educate and train program 
managers to ensure leadership and program management accountability. 
This strategy includes formal acquisition training, program reviews, 
and Milestone Decision Authority forums led by program managers. 
Program managers should be fully knowledgeable of their programmatic, 
contractual, and financial details of their programs, and should be 
able to measure performance against plans and adjust accordingly. BBP 
2.0, laid out by USD(AT&L), re-emphasizes the responsibilities of 
program managers. If confirmed, I will support USD(AT&L) to continue to 
empower program managers while holding them accountable.
                    major weapon system acquisition
    Question. Do you believe that the current investment budget for 
major systems is affordable given decreasing defense budgets, the 
historic cost growth trends for major systems, and the continuing costs 
of ongoing contingency operations?
    Answer. There is great uncertainty about future budgets at the 
present time. While I expect the costs of current contingency 
operations to decrease in the coming years, the specter of 
sequestration drive significant additional uncertainty. Without 
sequestration, the current investment portfolio is affordable. However, 
if the overall budget decreases more dramatically, it is unlikely the 
Department could afford the current portfolio of major systems and 
still maintain balanced risk in other parts of the budget.
    Question. If confirmed, how do you plan to address this issue?
    Answer. If confirmed, I would work with USD(AT&L) and others to 
ensure that the Department adheres to a sustainable and affordable 
investment strategy.
    Question. Roughly half of DOD's major defense acquisition programs 
have exceeded the so-called ``Nunn-McCurdy'' cost growth standards 
established in section 2433 of title 10, United States Code, to 
identify seriously troubled programs. Section 206 of the Weapon Systems 
Acquisition Reform Act of 2009 (WSARA) tightened the standards for 
addressing such programs.
    What steps if any would you take, if confirmed, to address the out-
of-control cost growth on DOD's major defense acquisition programs?
    Answer. If confirmed, I will work with USD(AT&L), as part of our 
BBP efforts, to make affordability and cost control a dominant part of 
our acquisition culture. I will integrate affordability and cost-
consciousness into our decision processes, and enforce affordability 
caps for both production and sustainment. I will work to appropriately 
incentivize our industrial base partners though our contracts to 
promote cost control. I will also work to ensure the Department's 
requirements, acquisition, and budgeting processes ensure investment 
decisions are informed by sound affordability constraints. For those 
programs that do experience unacceptable cost growth, I would work 
closely with USD(AT&L) and others within the Department to examine all 
available options, including restructure or termination. Lastly, if 
confirmed, I would focus on ensuring future programs are started with a 
sound affordability and technical grounding to reduce the likelihood of 
future growth in costs.
    Question. What steps if any do you believe that the Department 
should consider taking in the case of major defense acquisition 
programs that exceed the critical cost growth thresholds established in 
the Nunn-McCurdy provision?
    Answer. I believe the basic requirements of the Nunn-McCurdy 
provision are sensible in that they require a thorough review of the 
root causes of the issues, as well as a careful examination of the 
management of the program, costs and options going forward, and a 
reassessment of the criticality of the particular program to meeting 
validated requirements and national security needs. I also believe the 
Department should continue to undertake similar kinds of reviews well 
before required to do so by Nunn-McCurdy, and use available authorities 
to make appropriate adjustments.
    Question. Do you believe that the office of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, as currently 
structured, has the organization and resources necessary to effectively 
oversee the management of these major defense acquisition programs? If 
not, how would you address this problem?
    Answer. Yes.
    Question. Do you see the need for any changes to the Nunn-McCurdy 
provision, as revised by section 206?
    Answer. No. As I previously stated, I believe the basic tenets of 
the Nunn-McCurdy provisions are logical. Consistent with other efforts 
to streamline reviews in the Acquisition process, if confirmed, I would 
work with USD(AT&L) to tailor the reviews to meet the requirements of 
individual circumstances.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced critical cost 
growth under Nunn-McCurdy?
    Answer. If confirmed, I would be guided by the principles outlined 
in the Nunn-McCurdy statute.
                      operating and support costs
    Question. The Department estimates that operating and support (O&S) 
costs account for up to 70 percent of the acquisition costs of major 
weapon systems. Section 832 of the NDAA for Fiscal Year 2012 requires 
the Department to take a series of steps to improve its processes for 
estimating, managing, and reducing such costs.
    What is the current status of the Department's efforts to implement 
the requirements of section 832?
    Answer. The provisions of section 832 pertain to authorities vested 
in both the USD(AT&L) and the Cost Assessment and Program Evaluation 
Office (CAPE). The two organizations have collaborated on implementing 
policy that addresses the requirements outlined in section 832 through 
a major revision of Department of Defense Instruction (DODI) 5000.02, 
Operation of the Defense Acquisition System, which includes 
incorporating requirements from sections 805, 815, and 837 of the NDAA. 
Additionally, the CAPE and AT&L have restructured the Defense 
Acquisition Guidebook to further emphasize operations and sustainment 
(O&S) cost management among the acquisition workforce.
    Question. What steps remain to be taken to implement section 832, 
and what is the Department's schedule for taking these steps?
    Answer. AT&L will publish section 832 implementation guidance in 
the DODI 5000.02, Operation of the Defense Acquisition System, in 
calendar year 2013. In addition, we will supplement the section 832 
guidance with an operating and support cost management guidebook to 
complement the Cost Assessment and Program Evaluation Office Operations 
and Sustainment (O&S) cost estimating guidebook. This management 
guidebook will further emphasize the importance of considering O&S cost 
during system design trades early in a program's life, and assist 
programs in developing Life Cycle Sustainment Plans that include 
measures to control O&S cost. We are updating our guidance on 
Independent Logistics Assessments to ensure results are unbiased, and 
that programs use the assessments to improve reliability, availability, 
maintainability and reduce cost. Further, AT&L will monitor program 
efforts to manage and control O&S costs during Defense Acquisition 
Executive Summary reviews. I expect the Department to issue this 
amplifying guidance later this year.
    Question. What steps, if any, are needed to ensure that the 
requirements and acquisition communities fully and effectively 
collaborate to understand and control the O&S costs prior to and early 
in product development, when it is possible to have the most 
significant impact on those costs?
    Answer. The AT&L BBP initiative established an affordability cap 
requirement for both acquisition costs and Operations and Sustainment 
(O&S) costs. In so doing, we treat the O&S affordability cap in the 
same manner as we do a Key Performance Parameter--it will not be traded 
away against other system requirements. Accordingly, we are seeing 
positive results in Service-implemented configuration steering boards 
that facilitate active management of requirements between the 
acquisition and warfighter communities. With the proper requirements 
defined, AT&L evaluates a program's capability to meet availability and 
reliability requirements through milestone reviews and developmental 
and operational testing. The end result is an improved ability to 
optimize readiness and costs over a programs lifecycle.
    The Product Support Manager (PSM) is a critical facilitator of 
collaboration between the acquisition and requirements communities. 
Since the NDAA for Fiscal Year 2010, section 805 established the 
requirement for PSMs, the Services have designated PSMs for Acquisition 
Category (ACAT) I and II programs. We also established the PSM as a key 
leadership position and revised the Life Cycle Logistics training 
curriculum at Defense Acquisition University to better equip PSMs for 
success. USD(AT&L) also provided detailed guidance in September 2011 
for Program Managers and PSMs on development of the Life Cycle 
Sustainment Plans (LCSP). The LCSP is the program's primary tool for 
product support planning and is required for all acquisition 
milestones. The LCSP must provide the program's plan to satisfy the 
Joint Capabilities Integration and Development System mandated 
sustainment requirements, including the O&S cost key system attribute.
    Question. What additional steps, if any, do you believe the 
Department needs to take to bring O&S costs under control?
    Answer. We must execute and enforce key steps in the BBP 
initiative--sustainability, affordability, and cost constraints. We 
must use ``should cost'' management to drive costs down, including for 
sustainment contracts. We must ensure proper alignment of incentives 
between the government and its contractors. We are integrating policy, 
guidance, workforce training, and improved oversight of programs to 
reduce and control Operations and Sustainment (O&S) costs. This 
integrated approach provides better sustainment planning for those 
programs in the developmental phases of the acquisition process, a 
necessary first step to achieve quantifiable savings for programs in 
the operating and support phases of the life cycle. Our success will be 
the reduction of actual O&S costs realized in coming years.
                          systems engineering
    Question. One of the premises for WSARA was that the best way to 
improve acquisition outcomes is to place acquisition programs on a 
sounder footing from the outset by addressing program shortcomings in 
the early phases of the acquisition process.
    Do you believe that DOD has the systems engineering and 
developmental testing organizations, resources, and capabilities needed 
to ensure that there is a sound basis for key requirements, 
acquisition, and budget decisions on major defense acquisition 
programs?
    Answer. Yes. The Department has put emphasis on building the 
systems engineering and developmental testing capabilities required for 
acquisition. The numbers of system engineers and developmental testing 
personnel has increased. There is a potential challenge with workforce 
demographics as senior workforce personnel near retirement and a number 
of relatively junior people gain more experience and proficiency. If 
confirmed, I will strive to identify ways to address this problem.
    Question. What is your assessment of the Department's 
implementation to date of section 102 of WSARA, regarding systems 
engineering?
    Answer. In response to section 102, the Department established the 
Office of the Deputy Assistant Secretary of Defense for Systems 
Engineering, and has staffed this office with highly qualified 
professionals. There has also been additional guidance and oversight 
provided to the systems engineering capabilities in the Military 
Services. If confirmed, I will continue to support the Deputy Assistant 
Secretary of Defense for Systems Engineering in his oversight of this 
area.
    Question. What additional steps will you take, if confirmed, to 
implement this provision?
    Answer. I will work with the Service Acquisition Executives to 
implement systems engineering policy and guidance to strengthen 
implementation of section 102. We need to continue to address the 
competency, capacity, and authority of the systems engineering 
workforce as critical components of the acquisition system
                       open architecture programs
    Question. Certain programs within DOD have made considerable 
investments over the past several years in an effort to transition 
development of combat systems to an open business model, commonly 
referred to as Open Architecture (OA). OA systems are characterized by 
modular design, public access to design specifications, software reuse, 
common interface standards, and seamless interoperability between 
system hardware and software applications. By exercising the 
government's rights to the software developed with government funds, 
rejecting proprietary and closed solutions, the government may be able 
to bring to bear the critical elements of competition and innovation to 
achieve improved system performance and affordability of major systems 
both during the initial acquisition and during the sustainment phase.
    To what extent do you believe that DOD implementation of an open 
architecture strategy can lead to more efficient and effective 
development, production and sustainment programs for major weapon 
system acquisition?
    Answer. I believe the Department must strongly promote competition 
throughout the acquisition lifecycle to obtain the best value for the 
warfighter at the lowest cost to the taxpayer. To support a competitive 
environment, the Department has been aggressively pursuing open systems 
architecture (OSA) as a means of opening our acquisition efforts to 
greater competition, as well as more effectively managing intellectual 
property to rapidly bring greater innovation, from a wider array of 
sources, to the hands of our warfighter.
    I support the Department focus on open systems architectures and 
believe we must do a better job of creating options with approaches 
like this to promote competition throughout the product lifecycle. 
Promoting OSA business and technical best practices is one aspect of 
BBP 2.0, and the Department is developing tools and guidance to ensure 
that OSA practices are effectively applied.
    Question. Are you aware of any legislative or regulatory 
impediments to more broadly applying such a strategy?
    Answer. I am not aware of any legislative or regulatory impediments 
that inhibit implementing the DOD OSA strategy. The Department is 
working on implementing the legislative authority given us in the last 
NDAA for rights to data associated with segregation and reintegration 
information. I believe this is a positive change that will be 
especially helpful in crafting competitive open business models.
                         technological maturity
    Question. Section 2366b of title 10, U.S.C., requires the Milestone 
Decision Authority for a major defense acquisition program to certify 
that critical technologies have reached an appropriate level of 
maturity before Milestone B approval.
    What steps if any will you take, if confirmed, to make sure that 
DOD complies with the requirements of section 2366b?
    Answer. If confirmed, I would support USD(AT&L) in his role as 
chair of the Defense Acquisition Board (DAB) and Milestone Decision 
Authority (MDA) for Major Defense Acquisition Programs in fulfilling 
this requirement.
    Question. What steps if any will you take to ensure that the 
Assistant Secretary of Defense for Research and Engineering and the 
Deputy Assistant Secretary of Defense for Developmental Test and 
Evaluation are adequately staffed and resourced to support decisions 
makers in complying with the requirements of section 2366b?
    Answer. If confirmed, I will continuously monitor the staffing 
levels for the Assistant Secretary of Defense for Research and 
Engineering and the Deputy Assistant Secretary of Defense for 
Developmental Test and Evaluation to ensure they can comply with their 
requirements, to include those tasks to certify critical technologies 
for major defense acquisition programs as written in title 10, U.S.C., 
section 2366b. To date, I am not aware that these offices have been 
unable to meet their statutory requirements, but I will be vigilant to 
ensure they will be able to continue meeting this requirement.
                              concurrency
    Question. Some of the Department's largest and most troubled 
acquisition programs appear to have suffered significantly from 
excessive concurrency--the effort to produce a weapon system, even as 
it is still being designed.
    What impact do you believe that such excessive concurrency has on 
our efforts to produce major weapon systems on schedule and on budget?
    Answer. While some degree of concurrency may be appropriate, I 
believe that when the proper balance is exceeded the result can 
increase costs and lead to schedule delays. Any decision to 
concurrently enter into production while still in the design phase must 
take into account the risk in the development phase, the urgency of the 
need, and the impact on cost and schedule as a result of concurrent 
development. If confirmed, I will strive to ensure a careful balance is 
established between the risk of concurrency and the urgency for the 
need for programs that use it.
    Question. What steps will you take, if confirmed, to address this 
issue?
    Answer. If confirmed, I intend to ensure that concurrency in any 
planned major weapon system is thoroughly assessed from a risk and 
benefit perspective before recommending the program for initiation, and 
then re-evaluate the risks and benefits for each major program 
decision. I expect cost and schedule estimates to clearly identify the 
impact of any level of concurrent development and production. I will 
also ensure that the risks are carefully tracked over the life of the 
development effort.
                          joint strike fighter
    Question. Secretary Kendall has been quoted as saying that it was 
``acquisition malpractice'' to place the Joint Strike Fighter into 
production years before the first flight test.
    Do you share this view?
    Answer. Yes, I share Under Secretary Kendall's view. Specifically, 
the decision to begin production of the F-35 prior to flight test was a 
departure from accepted and proven principles. As Under Secretary 
Kendall has clarified, it is important to note that this judgment does 
not extend to the F-35 program as a whole or any specific person. The 
Department remains committed to the F-35 program and the program, if 
appropriately managed, the program will provide the Department to 
acquire a critical capability at an acceptable cost.
    Question. What steps if any do you believe that we can take now to 
address any problems or deficiencies that may have developed as a 
result of excessive concurrency on the Joint Strike Fighter program?
    Answer. I believe that the Department has already taken a number of 
steps that will minimize the risks of concurrency. The decision to 
maintain production at a fixed rate in fiscal years 2013 and 2014 will 
allow time to validate and stabilize the design through the flight test 
program. A ramp up in production is not planned until the need for 
further design changes are reduced. The Low Rate Initial Production Lot 
5 contract has been structured to ensure the appropriate amount of cost 
risk is shared between the contractor and the Government. If confirmed, 
I will ensure that future production decisions are based on adequate 
understanding of the concurrency, costs, and design stability.
    Question. What additional steps if any do you believe we should 
take to avoid similar problems in future acquisition programs?
    Answer. I believe we need to pursue acquisition strategies based on 
the sound principles of program management and system engineering. If 
confirmed, I will ensure that the acquisition and engineering 
professional leadership in the Department reviews major programs early 
and regularly to preclude planning that is overly optimistic in 
assumptions. I believe that a program based on sound acquisition and 
engineering strategies will have the best chance to succeed and execute 
within planned cost and schedule.
                       fixed price-type contracts
    Question. Section 811 of the NDAA for Fiscal Year 2013 requires the 
use of fixed-price contracts for the production of major weapon 
systems, with limited exceptions. Similarly, section 818 of the NDAA 
for Fiscal Year 2007 establishes a preference for the use of fixed-
price contracts for the development of major weapon systems.
    What is your understanding of the advantages and disadvantages of 
using fixed-price contracts for the development and procurement of 
major weapon systems?
    Answer. The decision to use a fixed price or cost plus contract for 
development and/or procurement of a major weapons system should be 
based on an understanding of the requirement, the technical risk, 
supplier experience and strength, and the market for the product. Fixed 
price contracts limit the Government's exposure to financial risk, but 
introduce other risks.
    Development fixed-price contracts make sense where we have firm 
requirements with technical trades complete, where design is 
established and required technologies are mature (low risk), where 
potential bidders have actual experience with the type of product 
desired and where they have the capacity to absorb some level of 
financial loss if problems arise. In this instance it is appropriate to 
place the financial burden on industry. The disadvantage is if the 
development effort experiences problems, there can be serious financial 
impact for the contractor. Further, because of the fixed price nature 
of the arrangement, it is much more difficult for the Government to 
provide technical guidance without having to renegotiate the contract.
    For procurement I'm much more comfortable with fixed price 
contracts provided there has been sufficient development and testing to 
have firm requirements, a proven design, established manufacturing 
processes and qualified suppliers. Use of incentive contracts in early 
production especially makes sense.
    Question. Under what circumstances, if any, do you believe it is 
appropriate for the Department to use a cost-type contract for the 
development or production of a major weapon system?
    Answer. Since most major weapon system development programs deal 
with maturing designs and significant integration problems, the factors 
I listed in the above question are not present and a fixed price 
development contract imposes too much risk on industry. A cost plus 
contract, on the other hand, reduces the financial risk and helps 
facilitate a more open working relationship with industry to achieve 
the desired outcome for the warfighter.
    Question. Do you see the need for any changes in the law governing 
the use of fixed-price contracts for the development and production of 
major weapon systems?
    Answer. No. The Federal Acquisition Regulation and the DOD Federal 
Acquisition Regulation Supplement already provide adequate 
flexibilities.
                         technology transition
    Question. The Department continues to struggle with the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms. Further, the Department also has struggled with 
moving technologies from DOD programs or other sources rapidly into the 
hands of operational users.
    What impediments to technology transition do you see within the 
Department?
    Answer. Over the past 2 years, as part of Deputy Secretary of 
Defense's Warfighter Senior Integration group, I have seen improvements 
in transitioning technology to the hands of the operator. However, 
there are still impediments, such as the lead time and rigidity of the 
budget process, the formality and inflexibility associated with 
Programs of Record, the difficulties in altering military requirements, 
and the hurdles small businesses and non-defense companies have in 
doing business with the Government.
    Question. What steps if any will you take, if confirmed, to enhance 
the effectiveness of technology transition efforts?
    Answer. There are already a number of activities underway in the 
Department to enhance the effectiveness of technology transition. The 
rapid acquisition programs that the Department has initiated to support 
ongoing operations have been very successful at acquiring new 
technologies and fielding them quickly.
    The Department needs to institutionalize the rapid acquisition 
process so that future urgent needs can also be met effectively, and 
efforts are underway for expanding the rapid acquisition of Joint 
Urgent Operational Needs (JUONs) from primarily off the shelf 
technology to those that require some limited development time and may 
not be directly associated with ongoing operations.
    Under the BBP initiatives, the Department has taken steps to 
improve the use of open systems and open architectures as a means of 
permitting new technologies to be inserted into existing programs. 
These are just examples of the types of steps the Department needs to 
take to improve technology transition.
    If confirmed, I will work with the USD(AT&L) and Assistant 
Secretary of Defense for Research and Engineering to drive additional 
opportunities to enhance technology transition.
    Question. What role do you believe Technology Readiness Levels and 
Manufacturing Readiness Levels should play in the Department's efforts 
to enhance effective technology transition and reduce cost and risk in 
acquisition programs?
    Answer. Technology and Manufacturing Readiness Levels (TRLs and 
MRLs) are aids to understand how the maturity of technologies or the 
lack of maturity can affect an acquisition programs risk. I believe 
they are valuable knowledge-based benchmarks against which to assess 
program risk, but I also believe that TRLs and MRLs alone are not 
conclusive about whether or not a program should proceed to development 
and production. Each decision requires an understanding of the actual 
risk associated with a technology, and the steps that could be taken to 
mitigate that risk. If confirmed, I will continue to use TRLs and MRLs, 
but I will also seek to improve how we handle risk assessments early in 
programs.
    Question. Section 1073 of the NDAA for Fiscal Year 2011 established 
a competitive, merit-based rapid innovation fund to accelerate the 
fielding of technologies developed pursuant to SBIR projects, 
technologies developed by the defense laboratories, and other 
innovative technologies.
    What is your view of the rapid innovation fund established by 
section 1073?
    Answer. This program emphasizes rapid, responsive acquisition with 
preference to small, innovative businesses solving defense problems 
using a fully merit-based, competitive proposal process. In September 
2011, the Department issued the initial solicitations for Rapid 
Innovation Fund (RIF) proposals, receiving over 3,500 responses, which 
lead to awards of 177 contracts by the end of September 2012. Given 
that the performance period for the majority of these contracts spans 
18-24 months, my view is that it is too early to determine the RIF's 
overall impact. Our implementation processes were successful in 
obtaining proposals, primarily from small businesses. However, contract 
awards should not be the sole criteria for success. I believe it will 
take more time to objectively assess the effectiveness of RIF in 
achieving its goals.
    Question. In your view, has the Department been successful in 
ensuring that awards under this program are made on a merit basis and 
benefit the Department?
    Answer. Yes, the Department successfully established a merit-based 
Rapid Innovation Fund (RIF) program. The Department employed Broad 
Agency Announcements in 2011 and 2012 for a competitive, two-step 
source selection process. This facilitated submission of white papers, 
with a ``go/no go'' evaluation, followed by request for full proposals 
to the highest rated ``go'' proposals. All vendors received a 
notification. With regard to program benefit, it will be at least 12-24 
months before the Department can effectively evaluate the outcome and 
benefits of RIF. However, owing to the in-depth involvement by 
acquisition program staff in evaluation of RIF proposals, I expect 
substantial benefits to be demonstrated.
        unrealistic cost, schedule, and performance expectations
    Question. Many acquisition experts attribute the failure of DOD 
acquisition programs to a cultural bias that routinely produces overly 
optimistic cost and schedule estimates and unrealistic performance 
expectations. Section 201 of WSARA seeks to address this problem by 
promoting early consideration of trade-offs among cost, schedule, and 
performance objectives in major defense acquisition programs.
    Do you believe that early communication between the acquisition, 
budget and requirements communities in DOD can help ensure more 
realistic cost, schedule, and performance expectations?
    Yes, early communication between these three communities is 
essential at all levels
    Question. If so, what steps if any would you take, if confirmed, to 
ensure such communication?
    Answer. If confirmed, I would reinforce existing efforts in the 
area of early communication between the communities. I will work with 
the component acquisition executives to stress the importance of their 
participation in similar early discussions for all acquisitions in 
their organizations. I will also stress the need to forge closer 
collaboration and understanding between those articulating military 
needs and those charged with fulfilling those needs. After early 
consideration of cost and capability trade-offs, I will strive to 
sustain stable programs through mechanisms such as Configuration 
Control Boards, and other forums where requirement, acquisition, and 
financial communities can interact usefully to achieve affordable and 
realistic outcomes. I will also foster training that inculcates these 
approaches into the culture of our workforce.
    Question. DOD has increasingly turned to incremental acquisition 
and spiral development approaches in an effort to make cost, schedule 
and performance expectations more realistic and achievable.
    Do you believe that incremental acquisition and spiral development 
can help improve the performance of the Department's major acquisition 
programs?
    Answer. Yes, but I recognize this is not a panacea, and how these 
approaches are applied to a particular situation requires careful 
deliberation. The strategy can be effective when faced with technology 
that is rapidly changing or we are faced with an evolving threat. It 
can also allow the fielding of a capability to the force that is ``good 
enough'' in the short-term, while continuing to advance a new 
technology to upgrade the system to provide the warfighter with a 
technical advantage long-term.
    Question. What risks do you see in the Department's use of 
incremental acquisition and spiral development?
    Answer. Applied appropriately, in the right circumstances, these 
approaches should not add additional risk. Technical risk can be 
minimized with a design that allows for incremental addition of 
capability, but this must be inherent in the program plans from the 
outset so that upgrades to the final configuration are as seamless as 
possible, or rolled into the product as changes in the production 
sequence. These approaches require careful consideration of technical 
rights, open or commercial standards, and interface requirements. If 
requirements are not clearly defined early in the effort, schedules are 
not realistic and resources are not provided in the required amount and 
with the proper phasing, the acquisition will take longer, cost more, 
and deliver less, regardless of the program's execution method.
    Question. In your view, has the Department's approach to 
incremental acquisition and spiral development been successful? Why or 
why not?
    Answer. I believe that the Department's approach to incremental 
acquisition and spiral development has had varied results. As with any 
approach, there are examples of both effective and ineffective 
employment of this type of acquisition process in the Department's 
history. It has been more challenging than expected in certain cases to 
``pre-plan'' future spirals of capability. Employed carefully, in the 
right circumstances, these approaches can be successful and if 
confirmed, I would work to achieve that.
                   funding and requirements stability
    Question. The poor performance of major defense acquisition 
programs has also been attributed to instability in funding and 
requirements. In the past, DOD has attempted to provide greater funding 
stability through the use of multi-year contracts. Section 814 of the 
NDAA for Fiscal Year 2009 requires the use of Configuration Steering 
Boards to exercise control over any changes to requirements that would 
increase program costs.
    Do you support the use of Configuration Steering Boards to increase 
requirements stability on major defense acquisition programs?
    Answer. Yes. Activities such as Configuration Steering Boards 
provide a leadership forum to review proposed changes to programs in 
terms of requirements, technology, or system configuration with the 
intent to preclude adverse program impacts on cost or schedule. If 
confirmed, I will continue to emphasize the positive aspects of 
Configuration Steering Boards and other similar forums.
    Question. What other steps if any would you recommend taking to 
increase the funding and requirements stability of major defense 
acquisition programs?
    Answer. If confirmed, I will work with senior leaders in DOD to 
strive to maintain funding and requirement stability to the maximum 
extent possible. The acquisition, requirements, and resource 
communities must work together to ensure programs have realistic 
requirements and funding profiles at inception, and must continue to 
work effectively together as programs execute throughout the lifecycle.
                          multi-year contracts
    Question. The statement of managers accompanying section 811 of the 
NDAA for Fiscal Year 2008 addresses the requirements for buying major 
defense systems under multi-year contracts as follows: ``The conferees 
agree that `substantial savings' under section 2306b(a)(1) of title 10, 
U.S.C., means savings that exceed 10 percent of the total costs of 
carrying out the program through annual contracts, except that multi-
year contracts for major systems providing savings estimated at less 
than 10 percent should only be considered if the Department presents an 
exceptionally strong case that the proposal meets the other 
requirements of section 2306b(a), as amended. The conferees agree with 
a Government Accountability Office (GAO) finding that any major system 
that is at the end of its production line is unlikely to meet these 
standards and therefore would be a poor candidate for a multi-year 
procurement contract.''
    If confirmed, under what circumstances, if any, do you anticipate 
that you would support a multi-year contract with expected savings of 
less than 10 percent?
    Answer. Though each situation is different, I believe that multi-
year contracts can provide substantial cost savings and should be 
considered as an option to best serve the warfighter and taxpayer. Key 
considerations would be the total savings that could be achieved and 
the firmness of the procurement plan. While 10 percent or more is the 
goal, it should not be an absolute standard; a lesser percent on a 
large procurement still yields significant dollar savings for the 
Department. If the Department is confident that the procurement is 
needed during the time period, then every opportunity for potential 
savings and increasing buying power will be critical in balancing the 
Department's budget as budgets decline.
    Question. If confirmed, under what circumstances, if any, would you 
support a multi-year contract for a major system at the end of its 
production line?
    Answer. I would have to review the merits of the particular 
situation since these are complex circumstances without simple answers, 
and there may be times it may be appropriate. In general, I would look 
for the total savings potential and stability in the planned 
procurement.
    Question. What are your views on multi-year procurements? Under 
what circumstances do you believe they should be used?
    Answer. I believe multi-year procurements are beneficial if they 
provide significant savings to the taxpayer, and there is a firm 
commitment to the planned procurement to provide stability to the 
industrial base. The circumstances and risks of each case need to be 
weighed carefully on the individual merits, but the magnitude of the 
savings and the expected stability of the program are among primary 
considerations.
    Question. Under what circumstances, if any, should DOD ever break a 
multi-year procurement?
    Answer. I would expect such a circumstance to be very unusual, but 
in the rare situation when it occurs, it could be an outcome of a 
decision to not to fund a program due to unanticipated budget cuts 
forcing the Department to reprioritize, an inability of the contractor 
to perform so another supplier must be arranged for, or an 
unanticipated threat that makes the program unneeded. If confirmed, I 
would continue to support the Federal laws and defense contracting 
regulations concerning multi-year procurement.
    continuing competition and organizational conflicts of interest
    Question. Section 202 of WSARA requires DOD to take steps to 
promote continuing competition (or the option of such competition) 
throughout the life of major defense acquisition programs.
    What is your view on the utility of continuing competition as a 
tool to achieve long-term innovation and cost savings on major defense 
acquisition programs?
    Answer. Competition is the Department's most effective tool to 
reduce prices, and DOD should use direct competitive acquisition 
strategies whenever possible. Competition allows the Department to 
leverage innovation, science and technology, design, and drive 
efficiency through a program's lifecycle, providing a stronger return 
on investment. The Department should attempt to use this paradigm as 
much as possible in its programs and contracting strategies. Using the 
BBP initiatives, we have stressed the need for a competitive 
environment to the greatest extent possible in all our programs, 
realizing the classical head to head competition situation is not 
always viable. If confirmed, I will work with USD(AT&L) to continue to 
stress creating a competitive environment as one of the most effective 
ways the Department has of controlling cost.
    Question. Do you believe that such continuing competition is a 
viable option on major defense acquisition programs?
    Answer. Yes, creating competition at both the prime and sub-
contract level is among one of the most powerful tools available to the 
Department to drive productivity and control cost. To ensure that 
competition is emphasized during each phase of the acquisition process, 
the Department has issued policy requiring our Program Managers to 
present a competition strategy at each program milestone. If confirmed, 
I will work with USD(AT&L) and Component Acquisition Executives to 
ensure this policy is effectively executed.
    Question. In your view, has the consolidation of the defense 
industrial base gone too far and undermined competition for defense 
contracts?
    Answer. The consolidation of the defense industrial base has left 
us with a limited number of prime contractors. Further consolidation at 
the prime contractor level is probably not in the best interest of the 
taxpayer or the Department. If confirmed, I will review any proposed 
business deal objectively on its merits and provide my input to the 
USD(AT&L). I expect to see increased activity in mergers and 
acquisitions in the lower tiers of the industrial base, and even 
consolidations to further streamline capabilities and respond in a 
market-driven manner to the reduced budgets anticipated over the coming 
decade. The USD(AT&L) and I will examine these transactions carefully 
on a case-by-case basis to preserve competition and facilitate the most 
efficient and effective industrial base possible.
    Question. If so, what steps if any can and should DOD take to 
address this issue?
    Answer. The Department's policy is to allow market forces to shape 
the market except in those cases that eliminate competition and are not 
ultimately in the best interest of the Department and taxpayer. The 
Department discourages mergers and acquisitions among defense materiel 
suppliers that are anti-competitive or injurious to national security. 
The Department is not, however, an antitrust regulator and the ability 
for the other regulatory agencies to intervene must meet statutory 
criteria. In cases of concern, I would ensure the Department provides 
information and support needed to the antitrust regulators for their 
merger reviews. I would also seek to encourage new entrants or 
exploration of alternatives in cases where consolidation has resulted 
in a loss of competition.
    Question. Section 203 of WSARA requires the use of competitive 
prototypes for major defense acquisition programs unless the cost of 
producing such prototypes would exceed the lifecycle benefits of 
improved performance and increased technological and design maturity 
that prototypes would achieve.
    Do you support the use of competitive prototypes for major defense 
acquisition programs?
    Answer. Yes. Competitive prototyping can be an effective mechanism 
for maturing technology, refining performance requirements, and 
improving our understanding of how those requirements can drive systems 
acquisition costs. They should be used primarily as a means of reducing 
future risk in the Engineering and Manufacturing Development (EMD) and 
production phase. There are cases however when the cost in time and 
money associated with competitive prototypes outweighs the potential 
benefits
    Question. Under what circumstances do you believe the use of 
competitive prototypes is likely to be beneficial?
    Answer. Competitive prototyping is risk reduction; however, this 
comes with a tradeoff of cost and schedule. Like all other risk 
reduction techniques, competitive prototyping has to be considered on a 
case-by-case basis and it has to reduce the risk of entering 
Engineering and Manufacturing Development (EMD). The level of risk 
depends on the maturity of candidate technologies, and more 
importantly, the risk associated with integrating those technologies 
into a viable product. When planned or proposed technology has 
implementation risk, particularly in an integrated product, and has not 
been demonstrated adequately, competitive prototyping during the 
technology development phase can be a key element of a comprehensive 
technical risk management process. Overall, competitive prototyping can 
provide benefits beyond risk reduction to include sustaining 
competition further into the design process, reducing total program 
cost, and lead to better products for our warfighters.
    Question. Under what circumstances do you believe the cost of such 
prototypes is likely to outweigh the potential benefits?
    Answer. In cases where the material solution is based on mature 
technologies and demonstrated designs with little integration risk, the 
additional costs, and schedule of competitive prototyping may not 
offset the potential reduction of risk and overall system lifecycle 
costs. Prototypes requiring very high investments with the prospect of 
very limited production runs are also not likely to be cost effective. 
For example, competitive prototyping of ships and satellites is 
frequently cost-prohibitive, both in a Technology Demonstration phase 
and in Engineering and Manufacturing Development phase. When a low risk 
approach is taken such as using a modified non-developmental item the 
benefits of competitive prototyping may not justify the cost.
  implementation of the weapon systems acquisition reform act of 2009
    Question. Several new major weapons programs have been started 
since the WSARA was enacted. Examples include the Ohio-class Submarine 
Replacement Program, the KC-46 Aerial Refueling Tanker Replacement 
Program, the VXX Presidential Helicopter Replacement Program, and the 
Ground Combat Vehicle Program.
    In your view, how effectively have such ``new start'' major defense 
acquisition programs abided by the tenets, and implemented the 
requirements, of the WSARA, particularly those that address ``starting 
programs off right'' by requiring that early investment decisions be 
informed by realistic cost estimates, sound systems engineering 
knowledge, and reliable technological risk assessments?
    Answer. I believe the Department has abided by the tenets and 
effectively implemented the requirements of WSARA in each of its ``new 
start'' programs begun since WSARA's enactment. The certifications 
required by WSARA provide a means to enforce each program's 
implementation. Each of the new start programs cited above received 
careful attention to develop well understood and technically achievable 
requirements with a sharp focus on affordability. I strongly believe 
that the keys to successful program execution are sound and realistic 
planning at program initiation, which are fundamental principles 
embodied in WSARA.
    Question. Where do you think there might be room for improvement?
    Answer. I believe WSARA provides adequate guidance and authority 
without the need for changes at this time. If confirmed, I will support 
USD(AT&L) and ensure the ``new start'' programs implement WSARA and BBP 
initiatives to maximize the program's probability of successfully 
delivering affordable, technically sound capability to the warfighter 
and the taxpayer. Fundamentally, the BBP initiatives that Deputy 
Secretary Carter and Under Secretary Kendall started are based on the 
premise that the Department can learn from experience and continuously 
improve. If confirmed, I will work to identify and implement continuous 
improvements to the acquisition system.
                   the better buying power initiative
    Question. DOD's Better Buying Power initiative provides acquisition 
professionals with important guidance on how to achieve greater 
efficiency, enhanced productivity, and affordability in how the 
Department procures goods and services.
    If confirmed, what steps if any will you take to follow-through on 
this guidance and ensure that it is implemented as intended?
    Answer. I will work closely with USD(AT&L) on a daily basis as we 
continue to pursue the efficiency, productivity, and affordability 
initiatives started in 2010 under BBP. The BBP initiatives are not 
static, they are under continuous review and are being modified, added 
to, and matured as the Department learns more from its experience with 
the initiatives. If confirmed, I will follow-through on implementation 
of the initiatives and carefully consider additional steps consistent 
with the principles and objectives of the initiatives.
    Question. What steps do you believe the Department should take to 
strengthen and improve the implementation of the BBP initiative?
    Answer. The Department is fully dedicated to the successful 
implementation of BBP. Under Secretary Kendall recently introduced BBP 
2.0 as part of the Department's commitment to continuous process 
improvement in the defense acquisition system. Many of the initiatives 
encompassed in BBP 2.0 are continuations from earlier BBP initiatives 
begun in 2010, because their implementation is long-term and ongoing. 
If confirmed, I will work closely with USD(AT&L), the Component 
Acquisition Executives, and others in the Department to monitor and 
drive the implementation of these initiatives, as well as identify 
additional ways to improve implementation. I will ensure we update 
appropriate policies and regulations, issue additional guidance, update 
training, and institute data collection mechanisms to objectively 
assess outcomes.
                       urgent and emerging needs
    Question. Section 804 of the NDAA for Fiscal Year 2011 required the 
Department to establish procedures to ensure that rapid acquisition 
processes are not misused for the acquisition of systems and 
capabilities that are not urgent and would be more appropriately 
acquired in accordance with normal acquisition procedures.
    Do you agree that rapid acquisition procedures are not generally 
suited to the acquisition of complex systems that require substantial 
development effort, are based on technologies that are unproven, and 
are too risky to be acquired under fixed price contracts?
    Answer. I agree that rapid acquisition procedures are not generally 
intended for programs of the complexity normal for a standard 
developmental acquisition program. The Department reserves rapid 
acquisition procedures for urgent requirements where a capability must 
be delivered as soon as possible, but generally within 24 months. These 
programs, by their nature, are not sustained development programs. They 
generally have limited cost risk as compared to traditional major 
development efforts, and if a nondevelopmental solution exists, it 
makes sense to acquire that solution in order to meet warfighter needs 
as soon as possible. However, for many Joint Urgent Operational Needs 
(JUONs) and Joint Emergent Operational Needs (JEONs), some 
modification, integration, or development of existing products is 
required to satisfy the requirement. Not all of these programs are 
suitable for fixed price contracts because they often utilize small, 
non-traditional suppliers who are not capable of absorbing the cost 
risks.
    These issues are considered when the requirement is initially 
validated, and the acquisition community continues to review them as 
the program progresses to ensure that we meet warfighter requirements 
in as timely way wherever possible. There may also be exceptional cases 
where a technological leap by an adversary may call for taking unusual 
risks not normally typified under rapid acquisition procedures. If 
confirmed, I will review the Department's use of rapid acquisition 
procedures to ensure that they are being properly applied.
    Question. DOD recently established a new category of requirement, 
known as Joint Emergent Operational Needs (JEON). Like JUONs, JEONs may 
be acquired through rapid fielding processes. Unlike JUONs, however, 
JEONs are not limited to capabilities that can be fielded within 2 
years, do not require extensive development, are based on proven 
technologies, and can be appropriately acquired through fixed price 
contracts. The committee report on the NDAA for Fiscal Year 2013 
directs the Department to develop additional protections to ensure that 
the JEON process is not abused.
    Would you agree that it would be inappropriate to use the JEON 
process to initiate significant acquisition programs without conducting 
cost-schedule-performance trade-offs, developing reasonable cost, 
schedule, and performance expectations, providing strong systems 
engineering, and ensuring the use of appropriately mature technologies?
    Answer. In general, I agree that a JEON is not intended as a 
mechanism to initiate a Major Defense Acquisition Program. There may be 
exceptions in which a rapid development initiated as a JEON (or even a 
Joint Urgent Operational Need (JUON)) could lead to significant 
acquisition programs. For example, route clearance vehicles acquired in 
response to a JUON provided the first V-shaped hulled vehicles to Iraq 
and Afghanistan. Their success in theater led to the initiation of 
additional JUONs that resulted in a significant acquisition program--
the MRAP class of vehicle.
    I understand that it is important to evaluate cost, schedule and 
performance trade-offs for JEON solutions because doing so is critical 
to responding to these requirements in a way that is consistent with 
their urgency. Systems engineering, cost and performance tradeoffs, and 
addressing technical maturity for JEONs, within the time available, is 
critical to ensuring we deliver sufficient capability when it is 
needed. The Department tailors its acquisition processes to ensure we 
address these important considerations while meeting the warfighter's 
immediate need. If confirmed, I will review the Department's handling 
of JEONs to ensure the appropriate procedures are in place and are 
being followed.
    Question. If confirmed, will you ensure that the Department 
develops additional guidance for JEONs, in accordance with the 
direction of the committee report on the NDAA for Fiscal Year 2013?
    Answer. Yes.
                        contracting for services
    Question. By most estimates, the Department now spends more for the 
purchase of services than it does for products (including major weapon 
systems). After a decade of rapid growth, section 808 of the NDAA for 
Fiscal Year 2012 placed a cap on DOD spending for contract services for 
fiscal years 2012 and 2013. Section 955 of the NDAA for Fiscal Year 
2013 requires a 5 percent reduction in spending for contract services 
over the next 5 years.
    Do you believe that DOD can do more to reduce spending on contract 
services?
    Answer. Yes, that is why I strongly support USD(AT&L) and 
Department leadership in continuing to make this a priority as 
indicated in USD(AT&L)'s November 13, 2012, memorandum entitled, 
``Better Buying Power (BBP) 2.0: Continuing the Pursuit for Greater 
Efficiency and Productivity in Defense Spending''. Through the 
initiatives that began under the original BBP in 2010, BBP 2.0 will 
focus on initiatives to improve our stewardship over service contracts, 
while ensuring the Department only acquires what it truly needs as 
economically as possible.
    Question. Do you believe that the current balance between 
government employees (military and civilian) and contractor employees 
is in the best interests of DOD?
    Answer. I believe the Department must routinely assess its Total 
Force mix to ensure an appropriate alignment of workload to military, 
civilian, and contract support. This alignment is driven by many 
variables, it takes time to rebalance, and is likely to change based on 
mission, operating environment, workload, and costs. I think we must 
ensure that we have a properly sized and highly capable government 
workforce that guards against an erosion of critical, organic skills 
and an overreliance on contracted services, particularly in such areas 
as acquisition program management, information technology, and 
financial management. However, the Department must also recognize the 
contributions and value of the private sector as a vital source of 
expertise, innovation, and support to the Department's Total Force. If 
confirmed, I will continue to support the administration's and 
Department's focus on ensuring our utilization of contracted support is 
appropriate given the nature of the mission, risks, and work required.
    Question. What steps if any would you take, if confirmed, to 
control the Department's spending on contract services and ensure that 
the Department complies with the requirements of section 808 and 
section 955?
    Answer. USD(AT&L) is continuing to make the acquisition of services 
a priority as part of his broader BBP initiatives. Through the 
initiatives that began under the original BBP in 2010, there will be a 
focus on initiatives to improve our stewardship over service contracts. 
If confirmed, I will support every effort to continue the Department's 
effort to comply with the requirements of sections 808 and 955. The 
Deputy Secretary of Defense has issued guidance to the Department on 
how to comply with the limitation on funds for contracted services 
imposed by section 808. Subsequently, a class deviation to the Defense 
Federal Acquisition Regulation Supplement (DFARS) implementing that 
guidance has been issued on July 31, 2012.
    Question. Would you recommend the use of fixed price contracts as 
the preferred contracting method for services? If not, why not?
    Answer. I would recommend that for service requirements that can be 
expressed in performance-based terms, with a defined output, the 
Department use fixed-priced contracts as the preferred method. However, 
contract type must be tailored to each particular requirement in order 
to influence desired results with the contracted service provided. For 
example, where contracted support is level of effort in nature, with no 
defined output, a cost plus fixed fee arrangement may likely be an 
appropriate approach. If confirmed I will support efforts to continue 
to address the determination of appropriate contract type as a key 
element of consideration in the review and approval process of 
acquisition strategies for service requirements.
    Question. Under what circumstances do you believe that fixed price 
contracts should or should not be used for the purchases of services?
    Answer. I would recommend fixed price contracts be used for work 
that can be expressed in performance-based terms that has a defined 
output.
    Question. Section 812 of the NDAA for 2007 required DOD to develop 
a management structure for the procurement of contract services. 
Sections 807 and 808 of the NDAA for Fiscal Year 2008 (subsequently 
codified in section 2330a of title 10, U.S.C.) require DOD to develop 
inventories and conduct management reviews of contracts for services.
    Do you believe the Department is providing appropriate stewardship 
over service contracts?
    Answer. Yes I do, but recognize there is room for further 
improvement in the Department's stewardship. If confirmed, I would 
strongly support USD(AT&L) and Department leadership in continuing to 
make this a priority in the BBP initiatives, which focus on initiatives 
to improve our stewardship over service contracts.
    Question. Do you believe that the Department has appropriate 
management structures in place to oversee the expenditure of more than 
$150 billion a year for contract services?
    Answer. Yes, though they can continue to be improved and expanded 
upon. The Military Departments, DLA, and the Missile Defense Agency, 
which have the largest portion share of the Department's expenditures 
on the acquisition of services, have identified a Senior Service 
Manager who is responsible for overseeing all acquisition of services. 
These Senior Service Managers are responsible for identifying and 
implementing more effective methods to procure required services and 
meeting on a regular basis to share lessons learned and best practices. 
Each of these Senior Service Managers has developed its own 
organizational structure and mechanisms to provide the appropriate 
oversight, management structure and review process for the acquisition 
of services. In addition, all acquisitions for services which exceed $1 
billion are reviewed and approved by the Director, Defense Procurement 
and Acquisition Policy and his staff to ensure that the strategy 
incorporates tenets the Department has established as requirements for 
the effective acquisition of services.
    Question. Do you support the use of management reviews, or peer 
reviews, of major service contracts to identify ``best practices'' and 
develop lessons learned?
    Answer. Yes, I believe that the Peer Review process that the 
Department has employed on the acquisition of services implemented for 
service contracts, and other major acquisitions, has been extremely 
beneficial. For acquisitions of services valued at $1 billion or more, 
a Peer Review team, comprised primarily of senior leaders and attorneys 
from outside the military department or defense agency whose 
procurement is the subject of the review, meet with acquisition teams 
to critically assess whether the acquisition process for services was 
well understood by both government and industry individuals. Similarly, 
military departments and defense agencies have developed and are 
executing plans to accomplish Peer Reviews within their respective 
organizations for acquisitions valued at less than $1 billion. The Peer 
Review process helps the Department to influence consistency of 
approach, ensure the quality of contracting, and drive cross-sharing of 
ideas such as best practices and lessons learned.
    Question. If confirmed, will you fully comply with the requirement 
of section 2330a, to develop an inventory of services performed by 
contractors comparable to the inventories of services performed by 
Federal employees that are already prepared pursuant to the Federal 
Acquisition Inventory Reform (FAIR) Act?
    Answer. Yes.
    Question. Section 863 of the NDAA for Fiscal Year 2011 requires DOD 
to establish a process for identifying, assessing, reviewing, and 
validating requirements for the acquisition of contract services.
    What is the status of the Department's efforts to implement the 
requirements of section 863?
    Answer. On March 4, 2012, the Deputy Secretary of Defense sent a 
memorandum to the Secretaries of the Military Departments and the 
Directors of the Defense Agencies directing they submit their 
respective processes and initial implementation plans to fulfill the 
requirements of section 863. The components have now submitted their 
plans through the Director of Defense Procurement and Acquisition 
Policy.
    Question. What steps remain to be taken, and what schedule has the 
Department established for taking these steps?
    Answer. The BBP initiatives recently announced by USD(AT&L) 
includes as a new initiative to expand the use of requirements review 
boards and tripwires. This initiative recognizes that a more robust 
process is required to identify, assess, review, and validate 
requirements for contracted services. Implementation details are 
expected in the coming weeks. If confirmed, I will support vigorous 
implementation.
    Question. What additional steps if any would you take, if 
confirmed, to improve the Department's management of its contracts for 
services?
    Answer. Consistent with statutory requirements for management 
oversight and control processes and the requirements in the original 
BBP memorandum of September 14, 2010, the components have put in place 
a framework to manage the acquisition of services. The components have 
each established a senior manager for services acquisitions. If 
confirmed, I would continue to support the Director of Defense 
Procurement and Acquisition Policy in developing, for the Under 
Secretary's approval, a new Department of Defense Instruction (DODI) to 
govern the acquisition of services to replace and expand upon existing 
guidance in DODI 5000.02, Enclosure 9. Further, I would support 
rigorous oversight of these policies, once put in place.
       contractor performance of critical governmental functions
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees. Section 1706 of title 10, U.S.C., as added by section 
824 of the NDAA for Fiscal Year 2013, requires that key positions on 
major defense acquisition programs be filled by full-time government 
employees.
    In your view, has DOD become too reliant on contractors to support 
the basic functions of the Department?
    Answer. I recognize that the private sector is, and will continue 
to be, a vital source of expertise, innovation, and support. DOD, which 
relies on an all-volunteer military force, cannot operate without the 
support of contractors. We must also maintain a properly sized, and 
highly capable, government workforce that guards against an erosion of 
critical, organic skills and an overreliance on contracted services. If 
confirmed, I will continue to support the administration's and 
Department's focus on ensuring our utilization of contracted support is 
appropriate given the nature of the mission, risks, and work required.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of the Department of 
Defense?
    Answer. Generally, I do believe that personal service contracts, 
established in accordance with the applicable statues, are in the best 
interest of the Department. I recognize that certain requirements, such 
as limited use of medical care providers, may be appropriately 
fulfilled using personal service contracts. However, I also recognize 
that service contracts that have been categorized as nonpersonal 
contracts may inappropriately evolve into personal service arrangements 
in practice. If confirmed, I will work to address this risk and enforce 
the limits on use of personal service contracts.
    Question. What is your view of the appropriate applicability of 
personal conflict of interest standards and other ethics requirements 
to contractor employees who perform functions similar to those 
performed by Government employees?
    Answer. When it is appropriate for contractors to perform work that 
is similar to work performed by government employees, my view is that 
those contractor employees should be held to similar ethical and 
conflict of interest standards as the government employees they 
support. In particular, they should not be allowed to misuse the 
information which may be available to them as a result of their 
performance under a DOD contract.
                          wartime contracting
    Question. The number of U.S. contractor employees in Afghanistan 
now substantially exceeds the number of U.S. military deployed in that 
country.
    Do you believe that the Department of Defense has become too 
dependent on contractor support for military operations?
    Answer. At this time, I do not believe the Department is too 
dependent on contractors in support of military operations. The Total 
Force is comprised of U.S. military forces, DOD civilians, and our DOD 
contractor partners. We live in a constrained resource environment and 
future operations will continue to use this Total Force. Military force 
structure is fixed by law, and we concentrate military manpower on 
combat capabilities and selected tasks that are inherently 
governmental. In addition, deployable DOD civilians also handle 
inherently governmental tasks. Military planners typically assign the 
remaining tasks to other elements of the total force, many of which are 
appropriate for contractor support. Contractors are force multipliers, 
performing non-inherently governmental functions, and allowing limited 
military resources to focus on what they are trained to do. Going 
forward, our management of contractors in support of military 
operations requires constant attention and review to continue to 
identify management improvements.
    Question. What risks do you see in the Department's reliance on 
such contractor support? What steps do you believe the Department 
should take to mitigate such risk?
    Answer. The risks associated with a heavy reliance on contractor 
support include possible loss of selected services for future 
contingencies in changed operational environments, the migration of 
inherently governmental functions to contractors, the erosion of the 
Department's critical core knowledge and capability, and the risk of 
losing contingency contract management expertise and structure that has 
been established over the last several years. I will ensure we conduct 
risk assessments associated with reliance on contract support in a 
variety of contingency operations to ensure the risks are addressed and 
mitigated. The Department must properly incorporate enduring polices, 
training, and doctrine to alleviate these risks. If confirmed, I will 
support the additional steps to integrate contractor support estimates 
into existing planning processes and procedures, and in force planning 
scenario development and joint force assessments.
    Question. Do you believe the Department is appropriately organized 
and staffed to effectively manage contractors on the battlefield?
    Answer. Yes, though each situation will be different, and this was 
not always the case. We are constantly improving our processes and 
procedures based on feedback from commanders in the field, 
congressional support, and suggestions from our service providers. The 
Department is aggressively operational contract support constructs to 
better manage contractors on the battlefield. This approach 
incorporates Requirement Definitions, as prescribed by Congress; Risk 
Management; and Operational Contingency Management practices that 
include consideration of contingency contractors and operational 
support capabilities in mission planning and execution.
    Question. Section 848 of the NDAA for Fiscal Year 2011, section 820 
of the NDAA for Fiscal Year 2012, and section 845 of the NDAA for 
Fiscal Year 2013 establish planning requirements for contractor 
logistics support.
    What is the status of the Department's efforts to implement the 
requirements of sections 848, 820, and 845?
    Answer. As required by section 820, contractors have been 
recognized as part of the Total Force, in addition to military and DOD 
civilians, in the appropriate strategic documents including the 
Quadrennial Defense Review and relevant policy and planning documents. 
Additionally, section 820 risk assessments on the use of contractors 
are being conducted, and contractors are being integrated into force 
mix evaluations and operational planning, including the biennial risk 
assessments by the Chairman of Joint Chiefs of Staff. Over the past 6 
years the Department has made far reaching improvements in the 
management and oversight of contractors to include contractor officer 
representative training, instruction in our senior service colleges, 
and in the General Officer/Flag Officer Capstone training. 
Strategically, the Operational Contracting Support Functional 
Capabilities Integration Board (FCIB) governance structure oversees 
continuing efforts to meet requirements outlined in section 845, as 
well as, requirements in previous legislation, the findings of the 
Commission on Wartime Contracting, and the Gansler Commission.
    Question. What additional steps do you believe the Department needs 
to take to improve its planning processes for the use of contractors in 
contingency operations?
    Answer. As required by law, we continue to refine contractor 
support requirements definition, the contingency program management 
organization, and related processes to ensure all needs are captured to 
avoid unnecessary duplication of capabilities, and to ensure we are 
synchronized with our agency partners. The recent transition in Iraq 
and the pending transition in Afghanistan have provided us numerous 
lessons learned in these areas.
    With regards to operational contracting support, the Joint Staff is 
finalizing their important update to Joint Publication 4-10, 
Operational Contract Support. Planners at each of the combatant 
commands have developed annexes for contracted support in key OPLANS 
and CONPLANS, and we are continuing to improve the plans for integrated 
contracted support at the service component level. If confirmed, I will 
continue to monitor their initiatives closely.
    Question. Sections 841 and 842 of the NDAA for Fiscal Year 2012 
gives the Department new tools to ensure that it does not enter 
contracts with any person or entity who is actively supporting hostile 
forces in Afghanistan.
    What is the status of the Department's efforts to implement the 
requirements of sections 841 and 842?
    Answer. The Department implemented sections 841 and 842 in the 
Defense Federal Acquisition Regulation Supplement (DFARS) via the Class 
Deviation #2012-O0005 on January 26, 2012. The deviation adds two new 
clauses to the DFARS--252.225-7993, Prohibition on Contracting with the 
Enemy in the U.S. Central Command (CENTCOM) Theater of Operations; and 
252.225-7994, Additional Access to Contractor and Subcontractor Records 
in the U.S. Central Command Theater of Operations.
    This class deviation allows the Heads of Contracting Activity (HCA) 
to exercise the authorities provided in the deviation, upon receipt of 
the enemy notification letter from the CENTCOM Commander, to restrict, 
terminate, or void contracts with persons or entities that support an 
insurgency or otherwise actively oppose U.S. or coalitions forces in 
Afghanistan. This deviation also grants contracting officers an 
additional access to any contractor's records, including 
subcontractors, regardless of contract value, to ensure Department's 
contracts are not subject to extortion or corruption. The CENTCOM 
Commander has issued four section 841 notifications to date, resulting 
in the termination of three subcontracts.
    Question. What additional steps do you believe the Department needs 
to take to avoid contracting with the enemy in Afghanistan?
    Answer. I believe sections 841 and 842 provide the Department 
sufficient statutory authorities to avoid contracting with the enemy in 
Afghanistan.
    Question. Does the Department need additional tools for this 
purpose?
    Answer. I believe the tools provided through sections 841 and 842 
are sufficient to enable us to succeed in this area.
                      private security contractors
    Question. Do you believe the Department of Defense and other 
Federal agencies should reduce their reliance on contractors to perform 
security functions that may reasonably be expected to require the use 
of deadly force in highly hazardous public areas in an area of combat 
operations?
    Answer. I believe the use of private security contractors must be 
carefully considered against the risk of becoming involved in combat 
operations. I also believe it may be appropriate to use private 
security contractors for specific security functions in contingency 
operations when they are limited by specific rules of engagement. 
However, the Department of Defense must provide proper guidance and 
supervision when using private security contractors and must ensure 
they do not engage in combat operations.
    Question. What steps if any would you take, if confirmed, to ensure 
that any private security contractors who may continue to operate in an 
area of combat operations act in a responsible manner, consistent with 
U.S. defense and foreign policy objectives?
    Answer. If confirmed, I will ensure the Department of Defense has 
policies that effectively guide the operations of private security 
contractors when they are used, and that we provide proper oversight. 
We must also ensure all contractors, to include private security 
contractors, are legally accountable for their actions, and that 
private security contractors that operate in an area of combat and 
contingency operations act responsibly.
    Question. Section 846 of the NDAA for Fiscal Year 2013 requires the 
Department of Defense to undertake risk assessments and risk mitigation 
whenever it relies on contractors to perform critical functions in 
support of overseas contingency operations.
    What steps will you take, if confirmed, to ensure that the 
Department fully implements the requirements of section 846?
    Answer. I believe that contract support is an essential part of the 
total force and will remain so in the future. In many cases contractors 
are absolutely vital. If confirmed, I will ensure that the Department 
of Defense policy and operational guidance addresses this requirement, 
and that proper risk assessments are conducted.
        u.s. special operations command acquisition authorities
    Question. U.S. Special Operations Command (SOCOM) is unique within 
the DOD as the only unified command with acquisition authorities and 
funding. Further, the Commander of SOCOM is the only uniformed 
commander with a subordinate senior acquisition executive.
    Would you recommend any changes to SOCOM's current acquisition 
authorities?
    Answer. I would not recommend any changes at this time. If 
confirmed, I will support continued dialogue between SOCOM and 
USD(AT&L) to improve acquisition efficiency and effectiveness.
    Question. What role do you believe SOCOM's development and 
acquisition activities should play in broader Service and Department of 
Defense efforts?
    Answer. I believe the Department should always seek the broadest 
benefit and application of its development and acquisition activities. 
The best way for the Department to take advantage of potential 
synergies and identify best practices is through close coordination 
between SOCOM's activities and the broader Department acquisition 
system. This coordination would also help to eliminate duplication and 
control costs.
    Question. If confirmed, how would you ensure that special 
operations capabilities and requirements are integrated into overall 
Department of Defense research, development and acquisition programs?
    Answer. If confirmed, I will continue to support the ``SOCOM 
Acquisition Summit'' that meets in person every 6 months to coordinate, 
collaborate, and integrate SOCOM's activities with the rest of the 
Department. This initiative, instituted by Deputy Secretary Carter and 
Under Secretary Kendall, has proven very beneficial to both SOCOM and 
the Department. I see the summit as important to ensure SOCOM's 
acquisition needs are understood and integrated with other Department 
efforts.
                         pass-through contracts
    Question. Section 852 of the John Warner NDAA for Fiscal Year 2007 
requires the Department of Defense to promulgate regulations 
prohibiting excessive ``pass-through'' charges on DOD contracts. 
Section 802 of the NDAA for Fiscal Year 2013 adds the requirement for 
contracting officers to consider the availability of alternative 
contract vehicles before entering into pass-through contracts in the 
first place.
    In your view, how extensive is the use of pass-through contracts in 
the Department of Defense and how important is it for the Department to 
reduce the use of such contracts?
    Answer. To the extent that pass-through costs exist, I believe it 
is important to reduce these costs because of the complexity of the 
weapon systems being procured by the Department. Prime contractors 
generally need to subcontract a portion of the effort in order to 
provide the most effective overall response to the requirement. 
However, I do not believe that there are necessarily extensive pass 
through costs associated with these subcontracting efforts. In response 
to the requirements of section 852 of the NDAA for Fiscal Year 2007, 
the Federal Acquisition Regulations (FAR) were modified to require 
prime contractors to identify their intention to subcontract more than 
70 percent of the total cost of work to be performed, and to provide a 
description of the added value being provided by the prime as related 
to the work to be performed by the proposed subcontractors.
    Question. What changes, if any, would you recommend to the 
requirements of section 852 and section 802 regarding pass-through 
contracts?
    Answer. Per statute, the Secretary of Defense, Secretary of State 
(State), and the Administrator of U.S. Agency for International 
Development (USAID) have 180 days from enactment to implement section 
802 of the NDAA for Fiscal Year 2013 to issue guidance and implement 
regulations. A Federal Acquisition Regulation case, 2013-012, was 
established for this purpose. Until this guidance is developed via the 
regulatory rule making process, it is difficult to comment on changes 
required by either section.
    Question. What additional steps, if any, do you believe the 
Department should take to address the problem of excessive pass-through 
charges?
    Answer. At this time, I believe we should wait for the Departments 
of Defense, State, and USAID to develop the guidance and regulations 
required by section 802 to determine if any additional steps need to be 
taken.
                        interagency contracting
    Question. What is your assessment of the risks and benefits 
associated with DOD's continued extensive use of interagency contracts?
    Answer. When used properly, interagency contracts can reduce 
procurement lead time, reduce administrative costs, and support 
strategic sourcing objectives. I believe DOD, in collaboration with 
numerous non-DOD agencies, the Office of Federal Procurement Policy, 
and Congress, have implemented processes and procedures that minimize 
the potential for inappropriate usage. I note on February 14, 2013, the 
GAO removed the Management of Interagency Contracting from their ``2013 
High Risk List''. I believe this action reflects these efforts and 
acknowledges that the risk of inappropriate usage under interagency 
contracts has been significantly reduced.
    Question. Do you believe additional authority or measures are 
needed to hold DOD or other agency personnel accountable for their use 
of inter-agency contracts?
    Answer. No. I have not seen any information that current policies, 
statute or regulations are not adequate. DOD policy encourages the use 
of an interagency solution when it's the best procurement approach and 
is a good business decision for the Department. Recent changes to the 
Federal Acquisition Regulations have bolstered the documentation 
requirements when conducting an interagency acquisition.
    Question. Do you believe contractors have any responsibility for 
assuring that the work requested by DOD personnel is within the scope 
of their contract?
    Answer. Yes, I believe contractors should review any order they 
receive to ensure the supplies or services ordered by the Government 
are within the scope of the contract that the requirement is being 
placed under. However, the contracting officer has primary 
responsibility for ensuring the work is within the scope of the 
particular contract. If a contractor has any concern that the work 
ordered is not appropriate under the contract then they should contact 
the agency contracting officer who placed the order and request 
clarification.
    Question. Do you believe that DOD's continued heavy reliance on 
outside agencies to award and manage contracts on its behalf is a sign 
that the Department has failed to adequately staff its own acquisition 
system?
    Answer. No, on the contrary, Congress has provided authority for 
numerous agencies to provide acquisition support to others. These 
potential solutions provide DOD requirements, organizations, and 
contracting officers additional flexibility and opportunity, not 
previously available, to best meet warfighter and mission needs. The 
use of interagency solutions enhances the Department's efforts to run 
as efficiently and effectively as possible and is consistent with our 
BBP initiatives.
                 acquisition of information technology
    Question. Most of the Department's Major Automated Information 
System (MAIS) acquisitions are substantially over budget and behind 
schedule. In particular, the Department has run into unanticipated 
difficulties with virtually every new business system it has tried to 
field in the last 10 years. Section 804 of the NDAA for Fiscal Year 
2010 required the Department of Defense to establish a new acquisition 
process for information technology.
    Do you believe that unique problems in the acquisition of business 
systems require different acquisition strategies or approaches?
    Answer. Yes, some business systems require acquisition approaches 
different from those normally used by the Department to acquire weapons 
systems. Business systems acquisition approaches should be tailored to 
the product being acquired. Information technology developed by the 
software industry for the commercial sector is aligned to best 
practices for personnel management, finance and accounting, contract 
management, and the supply chain. In order to be adopted for use by 
DOD, emphasis needs to be placed on re-engineering Department business 
processes to align with best practices. The Department has already 
begun to adapt to the unique challenges of business information system 
acquisition through the implementation of the Business Capability 
Lifecycle (BCL), which emphasizes well defined increments of capability 
that are developed, tested, and often fielded in increments structured 
around 1-2 year software builds. In addition, this approach will also 
be incorporated in the revised DOD Instruction 5000.02. If confirmed, I 
will assess this further and continue to promote practices that support 
better acquisition decisions of business systems.
    Question. What steps if any do you believe the Department of 
Defense should take to address these problems?
    Answer. The Department has issued guidance requiring the use of the 
Business Capability Lifecycle (BCL) for the acquisition process for 
business systems, which is an important step for improving the 
acquisition process for business systems. Over the past year this 
approach has been mandated for all new start business systems that are 
above the statutory Major Automated Information System (MAIS) 
threshold. In addition, this approach will also be incorporated in the 
revised DOD Instruction 5000.02. If confirmed, I will continue to 
support USD(AT&L) in his efforts to improve performance in this area 
and will continue to monitor the effectiveness of this approach to 
acquiring business systems to determine if further changes are needed.
    Question. What steps has the Department taken to implement the 
requirements of section 804? What steps remain to be taken?
    Answer. The Department continues to make progress implementing 
several of the key approaches outlined in section 804, specifically in 
the areas of Acquisition, Requirements, Testing and Certification, and 
Human Capital. We have implemented a framework for implementing a more 
flexible and streamlined process for the acquisition of business 
information systems to include the Business Capabilities Lifecycle. The 
Department's testing community has been working in collaboration with 
USD(AT&L) to incorporate an integrated testing, evaluation, and 
certification approach to reduce redundancies and improve the 
efficiency and effectiveness of testing on the Department's information 
systems. The Joint Staff continues to work efforts to include more 
streamlined requirements management and approval process for 
acquisition of information systems. A comprehensive review of 
Information Technology (IT) acquisition competencies is also currently 
being conducted by the Department's Chief Information Officer. This 
review will update the IT acquisition competencies to better define DOD 
critical skill sets. If confirmed, I will continue to assess these 
actions to ensure continued progress in these areas.
    Question. If confirmed, how would you work with the Chief 
Information Officer of the Department of Defense to take these steps?
    Answer. If confirmed, I will continue to work closely with the DOD 
CIO, and I will ensure the OUSD(AT&L) staff and the DOD CIO staff work 
collaboratively to identify and take steps needed to improve the 
acquisition of IT based capabilities. Program Managers responsible for 
procuring IT have traditionally been charged with acquiring the 
infrastructure they need to support their assigned procurement. This is 
an essential area for the Department to achieve consistently better 
outcomes given the continuing rapid evolution of technology.
    Question. Section 806 of the NDAA for Fiscal Year 2011 gives the 
Department of Defense new tools to address supply chain risk in the 
acquisition of information technology.
    What is the status of the Department's efforts to implement the 
requirements of section 806?
    Answer. The authorities provided by section 806 have the potential 
to significantly reduce risks associated with those who may have 
intentions to damage our systems and capabilities through the supply 
chain. We are working to exercise these authorities effectively. The 
Department has submitted a draft DFARS rule (2012-D050) in order to 
make use of the section 806 authority to the Defense Acquisition 
Regulation (DAR) Council. We anticipate the DFARS rule will next go to 
OMB with a request for an interim rule. In the meantime, we have been 
conducting table top exercises with the Services and Agencies to 
understand what implementation would look like, and documenting 
supporting tools and guidance.
    Question. What additional steps do you believe the Department needs 
to take to address supply chain risk?
    Answer. We must continue to incrementally refine and extend 
implementation of our Trusted Systems and Networks and Program 
Protection Planning strategies. The Department has developed a 
foundation for addressing supply chain risk in acquisition, and 
codified this in DODI 5000.02 program protection planning practice, as 
well as the DODI 5200.44 Trusted Systems and Networks policy, co-signed 
in November 2012 by USD(AT&L) and CIO. The Department will continue to 
implement these policies. No additional authorities are needed at this 
time to address supply chain risk management.
    Question. Section 818 of the NDAA for Fiscal Year 2012 establishes 
new requirements for DOD and its contractors to detect and avoid the 
use of counterfeit electronic parts.
    What steps has the Department taken to implement the requirements 
of section 818?
    Answer. In March 2012, AT&L published overarching Counterfeit 
Prevention Guidance employing a risk-based approach to the detection, 
prevention, reporting, and disposal of counterfeit parts in accordance 
with NDAA for Fiscal Year 2012 section 818. Additionally, we have 
drafted a Department-wide Counterfeit Prevention Policy based on the 
legislation and the March 2012 overarching guidance memorandum.
    The Department has developed training and education programs which 
are available to DOD personnel and other Federal employees. The 
Department is also currently conducting a study into hardware (HW) and 
software (SW) assurance testing which will result in a state-of-the-art 
report on HW/SW testing tools/techniques by the end of 2013.
    Question. What steps remain to be taken, and what schedule has the 
Department established for taking these steps?
    Answer. We are nearing completion on a department-wide Counterfeit 
Prevention Policy based on the NDAA for Fiscal Year 2012 section 818 
legislation and the AT&L March 2012 overarching guidance memorandum 
with an estimated issue date in the second quarter of fiscal year 2013. 
We have also drafted three proposed rules currently making their way 
through the review and approval process: (1) DFARS case (2012-D055) 
``Detection and Avoidance of Counterfeit Electronic Parts'', (2) a 
drafted FAR case (2013-002) ``Expanded Reporting of Non-conforming 
Items'', and (3) a proposed FAR case (2012-032), ``Higher level 
Contract Quality Requirements.'' We expect publication of the three 
proposed rules for public comment in calendar year 2013. Meanwhile, we 
are modernizing the GIDEP system to improve functionality, data 
throughput, customer support functions, and the ability to accommodate 
international requirements.
    Question. What additional steps do you believe the Department needs 
to take to address the problem of counterfeit electronic parts?
    Answer. We will need to continue to collaborate with industry, law 
enforcement, Federal agencies, and OMB to develop strategies and 
acceptable global awareness standards to minimize the introduction of 
counterfeit parts in the DOD supply chain. The Department also needs to 
explore expanding the use of technology in combating this threat 
through detection and prevention of their items entering our supply 
chain. We continue to evaluate different identification technologies 
and quality control techniques, including enhancements in our test and 
inspection regime to better assure parts authenticity, and provide 
early identification of non-conforming materiel. We will continue to 
participate in industry-sponsored working groups, such as those hosted 
by the Aerospace Industry Association, the trade association for many 
of our prime suppliers, and the Society of Automotive Engineers, as we 
strive for ``improved'' commercially acceptable global sourcing 
standards.
    Question. Some have argued that the current test and evaluation 
process does not appropriately address the unique circumstances 
applicable to the acquisition of information technology systems.
    What steps if any do you believe the Department should take to 
improve the test and evaluation process for information technology 
systems, including their vulnerabilities in the face of a growing 
cybersecurity threat environment?
    Answer. Information systems technologies exist throughout virtually 
every system the Department operates and produces. While information 
technology systems are currently tested as part of the acquisition 
process, the Department should explore the effectiveness of more 
efficient and tailored test strategies for each of these types of 
systems. For example, consideration should be given to earlier 
interoperability and cyber security testing to support the software 
development process. The Department should also seek to improve 
capabilities and approaches that promote a more continuous test 
approach that integrates developmental test, operational test, as well 
as certification and accreditation activities. If confirmed, I will 
work to improve our ability to test information technology systems.
                 cyberspace-related procurement policy
    Question. DOD's new strategic guidance highlights the increasing 
importance of cyber operations with respect to both defensive and 
offensive capabilities. As a result, this is one of the few areas in 
which the Department is proposing to increase its investments.
    What acquisition challenges do you foresee that are unique to the 
procurement of cyber-related capabilities?
    Answer. I foresee many dynamic challenges in this area. The 
Department recently instituted a new process for cyber acquisition to 
recognize and address these issues, and more effectively acquire 
capabilities for offensive and defensive cyberspace operations.
    To keep pace with the threat and changing technologies, cyber 
related products must often go through the acquisition lifecycle of 
development, testing, and fielding on very short timelines. The 
challenge to acquiring cyber capabilities at the pace needed will be 
managing the risk while streamlining the acquisition process; 
accommodating the rapid pace of information technology changes; and 
maintaining a rapid pace while prudently evaluating operational 
performance prior to fielding. This requires timely collaboration 
across a very broad spectrum of stakeholders, including industry 
partners, to ensure appropriate results are achieved. If confirmed, I 
will work closely with USD(AT&L) to implement and refine the approaches 
to address these challenges.
    Question. What steps if any will you take, if confirmed, to address 
these unique challenges?
    Answer. Section 933 of the Ike Skelton NDAA for Fiscal Year 2011 
directed the Department to provide a strategy for the rapid acquisition 
of tools, applications, and other capabilities for cyber warfare. In 
response, the Department created a Cyber Investment Management Board 
(CIMB) and prescribed processes to meet urgent acquisition needs for 
cyber capabilities.
    If confirmed, I will work with the USD(AT&L) to help actively 
oversee the Department's cyber acquisition investments in cooperation 
with appropriate personnel across the Department. I will also work with 
other Federal agencies and with industry to address the challenge of 
acquiring cyber offense and defense capabilities, especially in the 
Defense Industrial Base as highlighted in the recent Executive Order on 
Critical Infrastructure and Presidential Policy Directive (PPD) 21--
Critical Infrastructure Security and Resilience.
                         acquisition workforce
    Question. Section 852 of the NDAA for Fiscal Year 2008 established 
an Acquisition Workforce Development Fund to help the Department of 
Defense address shortcomings in its acquisition workforce. The fund was 
restructured and extended by section 803 of the NDAA for Fiscal Year 
2013.
    Do you believe that the Acquisition Workforce Development Fund is 
still needed to ensure that DOD has the right number of employees with 
the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. Yes. The fund has enabled DOD to strengthen the workforce 
in many critical functions and is needed for continuous improvement of 
workforce skills and qualifications. The quality of the workforce and 
their efforts are vital to acquisition outcomes that support the 
warfighter while managing of taxpayer resources.
    Question. If confirmed, what steps will you take to ensure that the 
money made available through the Acquisition Workforce Fund is spent in 
a manner that best meets the needs of the Department of Defense and its 
acquisition workforce?
    Answer. If confirmed, I will support USD(AT&L) as he works with 
senior acquisition leaders and the leadership of the Military 
Departments to wisely use the fund to implement strategic guidance and 
priorities, which include providing the right balance across various 
acquisition professional career fields, and improving the 
professionalism and qualifications of the workforce.
                      the defense industrial base
    Question. What is your view of the current state of the U.S. 
defense industry?
    Answer. I believe the Department relies on a broad technical and 
industrial base that is far more global, commercial, and financially 
complex than ever before. For the past decade the defense industrial 
base has enjoyed a period of increasing budgets that is now at an end. 
In addition, financial uncertainty has caused firms to delay investment 
decisions and seek other markets. While I think our industrial base is 
currently strong, I am concerned about the impact that further defense 
budget cuts would have on the ability of the base to provide the broad 
range of products and services that the Department and our Nation need. 
If confirmed, the continuing health of the industrial base will be a 
high priority for me.
    Question. Do you support further consolidation of the U.S. defense 
industry?
    Answer. I believe that the expansion and consolidation of 
industries and companies at all tiers is the hallmark of a robust free 
market economy as it responds to the market forces. I expect, and 
encourage the free market to act when faced with changing demand 
signals. However, I also believe the Government must be watchful for 
consolidations that eliminate competition or cause market distortions. 
The Department's leadership, including Deputy Secretary Carter and 
Under Secretary Kendall, have indicated that further consolidation at 
the top tier would not be viewed favorably, though it is reasonable to 
expect continued mergers and acquisition in the lower tiers in response 
to anticipated reduced budgets. I believe that each individual case of 
consolidation, acquisition, or merger dealing with our defense firms 
must be examined carefully for what is best for the warfighter and the 
taxpayer, particularly with regard to its impact on competition.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. Foreign investment in our industrial base has generally 
benefitted the United States, including DOD, by providing needed 
capital and increasing access to leading-edge technologies. However, I 
believe foreign investment, particularly in the defense sector, can 
expose critical national defense-related technologies to risks, 
including the possible loss of intellectual property that gives our 
warfighters the technological edge they rely upon. Congress has put 
provisions in place to address critical national security concerns of 
this nature, including the Committee on Foreign Interests in the United 
States (CFIUS) led by the Department of the Treasury. If confirmed, I 
will continue DOD's commitment to its oversight function and to 
ensuring that national security concerns are addressed in transactions 
that involve foreign investments in the United States.
    Question. What steps if any do you believe the Department of 
Defense should take to ensure the continued health of the U.S. defense 
industry?
    Answer. If confirmed, I would ensure the sources of manufacturing 
and services that DOD relies on are capable of meeting our warfighters' 
requirements. I will ensure the Department proactively monitors the 
industrial base to identify risks that need to be addressed on a case-
by-case basis. When necessary and as resources permit, the Department 
should be prepared to act to ensure that certain key industrial 
capabilities are sustained, although we must recognize this will not be 
possible in every case.
    I believe the Department must simultaneously be receptive to 
industry's concerns and address their issues as effectively as 
possible, consistent with the Department's priorities and the resources 
available. I will also continue to make myself assessable to industry, 
as I always have, working closely and communicating to ensure that, as 
DOD makes changes necessary to adapt to a new set of strategic and 
budgetary challenges, it does not inadvertently jeopardize critical 
elements of the industrial base.
    Question. What is your understanding of the status of the 
Department's ongoing Sector-by-Sector, Tier-by-Tier (S2T2) analysis of 
the defense industrial base?
    Answer. In 2012 the Department tested the S2T2 analytical process 
with the Army M-1 Abrams program. It was a labor-intensive 
collaboration between OSD and the Army to identify the most critical 
and fragile capabilities in the industrial base, and develop a cost 
effective option for preserving the ability to support the current 
generation and next generation of ground vehicles. I note that this is 
a process, rather than a single analysis, and the Department has plans, 
which I would support if confirmed, to expand this process to more 
broadly support the other services and perform an assessment of 
multiple sectors and programs.
    Question. Has the Department taken any concrete steps to enhance 
the health and status of a particular sector or tier based upon this 
analysis?
    Answer. The test case for S2T2 analysis is the M-1 Abrams program. 
The primary goal of the assessment was to preserve the tank industrial 
base by developing an affordable acquisition profile that would 
maintain needed industrial capabilities. Potential Foreign Military 
Sales were factored in as a way to make-up for at least some lost work. 
Bridge buys or other forms of investment were also factored in for 
critical and fragile second to fourth tier suppliers to determine the 
fiscal year 2014 funding profile required to address risks in 2015. 
Where practical, targeted investments using existing authorities and 
other programs are being considered to improve and preserve critical 
manufacturing capabilities.
    Question. Under what circumstances if any do you believe the 
Department should use Defense Production Act Title III authorities to 
address defense industrial base needs?
    Answer. I believe that the Department should only use title III 
authorities when it meets the two determinations consistent with 
section 303 of that law that: taking such action is essential to the 
national defense; and without such action, U.S. industry cannot 
reasonably be expected to provide the capability for the needed 
industrial resource, material, or critical technology item in a timely 
manner. These decisions must be informed by a thorough industrial base 
analysis, consultations with the Defense Production Act Committee 
(DPAC), as well as the advice of other agencies in determining 
industrial base priorities for DPA title III investments.
    Question. What is your view of current or anticipated consolidation 
efforts by major defense contractors?
    Answer. As I stated in my previous response, I do not foresee a 
time in the near future where further consolidation of this part of the 
base would be in the best interest of the warfighter or the taxpayer. I 
believe that we should preserve as much competition as possible and 
avoid market distortions not in the best long-term interests of the 
Government.
                         science and technology
    Question. What, in your view, is the role and value of science and 
technology programs in meeting the Department's transformation goals 
and in confronting irregular, catastrophic, traditional and disruptive 
threats?
    Answer. Science and Technology (S&T) programs of the Department 
have always been critical to meeting new and emerging threats, and I 
anticipate this will continue. S&T helps the Department meet 
transformation goals; and continues to address emerging threats such as 
anti-access/area denial challenges. With a focused, high quality, 
aggressive science and technology program that is responsive to the 
full range of capabilities required by our Armed Forces, we will be 
able to preserve the future and maintain technological superiority over 
our adversaries.
    Question. If confirmed, what direction will you provide regarding 
funding targets and priorities for the Department's long-term research 
efforts?
    Answer. If confirmed, I will work with the USD(AT&L), the ASD(R&E) 
and the department's leadership to provide direction for funding 
targets for long-range research, balanced against other priorities. The 
Department and the administration have placed a strong emphasis on 
sustaining S&T spending. Secretary Panetta and the USD(AT&L) have 
repeatedly indicated that technological superiority underpins the 
Department's recently released Military Strategy Guidance; I share that 
view. If confirmed I will continue that emphasis and, subject to the 
Secretary's approval, use available mechanisms for establishing funding 
targets.
    Question. What specific metrics would you use, if confirmed, to 
assess whether the Department is making adequate investments in its 
basic research programs?
    Answer. Establishing viable metrics to assess investments in basic 
research has proved to be difficult, in part because the time scale 
from basic research funding to output and fielded system can be long. 
If confirmed, I will work with USD(AT&L) and the ASD(R&E) to assess 
investments made by the military services and agencies in basic 
research and ensure effective management of this portfolio. Specific 
metrics should include publications, patents, and technology 
transitions to our acquisition programs. However, these are incomplete, 
and if confirmed, we will continue to seek basic research metrics.
    Question. Do you feel that there is sufficient coordination between 
and among the science and technology programs of the military services 
and defense agencies?
    Answer. I believe that the Department is improving in this area, 
with additional room for improvement. The Department has recently 
reintroduced the process whereby all S&T portfolios with significant 
multi-agency investment must deliver an integrated roadmap for review 
by the Department's S&T Executives. As a pilot, the Department has 
established seven Priority Steering Councils, consisting of scientists 
and engineers from the services and agencies, whose job it is to 
develop cross-cutting roadmaps for the Department's recently designated 
S&T Priorities. The councils are complemented by Communities of 
Interest (COIs) populated by scientist and engineers from the services 
and agencies for the purpose of integrating the Department's S&T 
program in specific technology areas. COIs are permanent in nature. 
There are also short-term Technology Focus Teams (TFTs) that perform 
in-depth analysis of specific technology issues and report their 
findings to the S&T EXCOM. If confirmed, I will work with the USD(AT&L) 
and the ASD(R&E) to continue improvements in coordination among these 
areas.
    Question. Are you satisfied that the Department has a well 
articulated and actionable science and technology strategic plan?
    Answer. There is a well-coordinated technology strategic investment 
strategy, but I believe there is room for improvement in strategies 
that cover specific topical areas. The Department has well-articulated 
and actionable strategic plans for basic research, and for Science, 
Technology, Engineering, and Mathematics (STEM) education. I believe it 
would be valuable to document an overarching Departmental Science and 
Technology strategic plan. If confirmed, I will work with the USD(AT&L) 
and the Assistant Secretary of Defense for Research and Engineering to 
develop such a plan.
    Question. Do you see a need for changes in areas such as hiring 
authority, personnel systems, financial disclosure and ethics 
requirements, to ensure that the Department can recruit and retain the 
highest quality scientific and technical workforce possible?
    Answer. I have not seen specific evidence of problems attributable 
to these areas. I believe, as does USD(AT&L), that the Department needs 
to continue to strengthen its workforce in the science and engineering 
fields. If confirmed, I will work with the USD(AT&L), the ASD(R&E), and 
other Department leadership to assess this situation and determine 
whether any corrective action is needed.
    Question. The Assistant Secretary of Defense for Research and 
Engineering (ASD(R&E)) has been designated as the Chief Technology 
Officer of the Department of Defense.
    In your view, what is the appropriate role of the Chief Technology 
Officer of the Department of Defense?
    Answer. As outlined in the Department of Defense Directive 5134.3, 
I believe the appropriate role of the Chief Technology Officer (CTO) is 
to provide technical leadership, guidance, and oversight for the 
Department's Research and Engineering activities, to include the early 
identification of critical technology opportunities that could lead to 
affordable new capabilities. Finally, the CTO should evaluate the 
adequacy of the Department's overall Research & Engineering investment 
and program content.
    Question. What authority should the ASD(R&E) have over the Defense 
Advanced Research Projects Agency (DARPA)?
    Answer. DARPA is a Defense Agency under the direction, authority 
and control of the USD(AT&L) through the ASD(R&E). The DARPA director 
directly reports to the ASD(R&E), and consequently DARPA should operate 
in accordance with high-level direction from ASD(R&E). I would not 
recommend any changes in these roles or authorities.
    Question. What authority should the ASD(R&E) have over other 
Service and Agency science and technology efforts?
    Answer. I believe the existing authorities outlined in DOD 
Directive 5134.3 are appropriate. The ASD(R&E) is to recommend 
approval, modification, or disapproval of programs and projects of the 
Military Departments and Defense Agencies to eliminate unpromising or 
unnecessarily duplicative programs, and is also designated to recommend 
the initiation or support of promising projects or programs for the 
science and technology program. Finally, the ASD(R&E) is responsible 
for recommending budget adjustments to the USD(AT&L) and the Secretary 
of Defense.
    Question. Do you see the need for any changes in organizational 
structure, workforce, or availability of resources to improve the 
effectiveness of the Office of the Assistant Secretary of Defense for 
Research and Engineering?
    Answer. No. If confirmed, I will continuously monitor the alignment 
and balance of all acquisition, technology, and logistics offices to 
improve their effectiveness and ability to meet the mission
                          defense laboratories
    Question. What is your view on the quality and relevance of the DOD 
laboratories as compared to the DOE national laboratories, Federal 
laboratories, academic laboratories, and other peer institutions?
    Answer. My view is that the DOD laboratories are in general staffed 
with dedicated competent scientists and engineers performing important 
missions for the Department. A key issue going forward is how to 
operate these Laboratories as an enterprise to meet the needs of the 
Department even more effectively. The ASD(R&E) is working with the 
Office of Science and Technology Policy, the Services, and other 
Departmental stakeholders on an analysis to address Federal laboratory 
capacity. If confirmed, I will support the USD(AT&L) in his assessments 
of this area.
    Question. What metrics will you use, if confirmed, to evaluate the 
effectiveness, competitiveness, and scientific vitality of the DOD 
laboratories?
    Answer. If confirmed, I will primarily rely on an evaluation based 
on success in developing and transitioning new technologies to 
warfighters, the quality of their technical workforce, and the results 
of external reviews of their effectiveness and innovation. I would also 
be open to new approaches for objectively assessing the performance of 
the laboratories.
    Question. What steps if any will you take, if confirmed, to 
increase the mission effectiveness and productivity of the DOD 
laboratories?
    Answer. The USD(AT&L) has initiated the process to assess the 
productivity of DOD's acquisition institutions, including laboratories. 
If confirmed, I will support that process with the ASD(R&E) to review 
options and opportunities to increase the mission effectiveness of DOD 
laboratories.
    Question. In your view, have the DOD laboratories struck an 
appropriate balance between investments in near-term technology 
programs that are tied to current battlefield needs and investments in 
longer term, higher risk, and revolutionary capability development?
    Answer. Yes. The realities of a nation at war have forced our 
laboratories to develop near-term programs. However, the labs have 
maintained long-term efforts as well. As the Department draws down from 
current combat operations, I would expect a modest shift back to medium 
and long-term efforts. The Services currently align approximately one-
third of their basic science budgets to in-house programs. A recent 
review of the labs' basic science program was conducted by the Defense 
Science Board (DSB) and their report concluded that the in-house basic 
research program was technically strong and healthy. In general, I 
think the Department has a reasonable balance; however, if confirmed, 
with the USD(AT&L), I will continue to assess this balance to determine 
if adjustments are needed.
    Question. Do you believe that this balance is likely to change with 
the completion of our withdrawal from Iraq and our ongoing drawdown in 
Afghanistan?
    Answer. I expect the balance between near-term and longer-term 
research will not change dramatically as a result of these events, but 
will move slightly away from near-term efforts. In addition, the 
portfolio of research topics will likely shift to support the 
Department's recently released strategic guidance, particularly toward 
any emerging threats, such as anti-access/area denial. If confirmed, I 
will continue to assess the balance with the ASD(R&E).
    Question. Section 219 of the NDAA for Fiscal Year 2009 authorizes 
the directors of a defense laboratory to use up to 3 percent of the 
total funds available to the laboratory to fund innovative research, 
technology transition activities, and workforce development.
    What is your understanding of the extent to which the Department 
has implemented section 219?
    Answer. I understand each of the Services has implemented section 
219 programs in a unique fashion that aligns with their unique Service 
business models. Though the statute gives authority to lab directors to 
utilize up to 3 percent of all available funds for this program, the 
actual amount to date has been in the 1 to 2 percent range. The 
Department submits a section 219 status report annually to Congress to 
detail the related investment, the latest of which was delivered on 
June 4, 2012.
    Question. Do you believe that the funding flexibility provided by 
section 219 has been appropriately utilized by the Department?
    Answer. Yes. Each lab director has balanced section 219 investments 
with other programs and procurements, and used the flexibility of 
section 219 to support their business model. If confirmed, I will 
continue to monitor the use of this flexibility by lab directors.
    Question. Do you believe that it would be feasible or appropriate 
for the Department to use the authority of section 219 to adjust the 
balance between investments in near-term technology programs and 
longer-term, higher-payoff investments?
    Answer. I believe these adjustments are already being done under 
section 219, so I recommend no changes at this time.
                                 darpa
    Question. In your view, has DARPA struck an appropriate balance 
between investments in near-term technology programs that are tied to 
current battlefield needs and investments in longer term, higher risk, 
and revolutionary capability development?
    Answer. Yes. DARPA's mission of creating and preventing 
technological surprise does require a focus on high-impact 
opportunities for the future. At the same time, DARPA has contributed 
to near-term needs, and in the process learned valuable lessons that 
inform its longer-term efforts.
    Question. What are the major issues related to DARPA investments, 
management and workforce, and research outcomes that you will seek to 
address?
    Answer. DARPA continues to be a key center for DOD innovation. If 
confirmed, I will continue to help it remain a preeminent source of 
creative and technically superior capabilities.
    Question. Do you feel that DARPA is adequately transitioning its 
programs to the Services and Defense Agencies? If not, how will you 
address that challenge?
    Answer. This is always a challenge for high-impact efforts that 
challenge the status quo. DARPA continues to build strong relationships 
with the Services to ease the way for transition. If confirmed, I will 
place a high priority on technology transition.
    Question. Do you believe that there has been an appropriate level 
of interaction between DARPA and its intelligence community analog, 
IARPA, given the overlap in many research areas?
    Answer. I have not looked into how DARPA interacts with IARPA, but 
if confirmed, I will look into this interaction and take action if 
appropriate.
                          test and evaluation
    Question. The Department has, on occasion, been criticized for 
failing to adequately test its major weapon systems before these 
systems are put into production.
    What are your views about the degree of independence needed by the 
Director of Operational Test and Evaluation (DOT&E) in ensuring the 
success of the Department's acquisition programs?
    Answer. I believe the DOT&E must be an independent entity to ensure 
the Department's weapon systems are realistically and adequately tested 
in their intended operational environment. If confirmed, I will work 
with the DOT&E on testing and evaluation issues as a partner in the 
acquisition process, and continue to welcome his insights on program 
performance and other issues. DOT&E's independence is of value in the 
acquisition process.
    Question. What are your views about the role of the Director of 
Developmental Test and Evaluation (DT&E) in ensuring the success of the 
Department's acquisition programs?
    Answer. I believe the role of the DASD(DT&E) is beneficial to the 
Department's acquisition process, and if confirmed I will rely on the 
DASD(DT&E) for advice on the demonstrated maturity of designs to enter 
initial production and on the adequacy of planned test programs.
    Question. Are you concerned with the level of test and evaluation 
conducted by the contractors who are developing the systems to be 
tested?
    Answer. I have no evidence that this is a major area of concern. 
The test strategy for an acquisition program is based on a variety of 
factors, and each program requires a different mix of government and 
contractor testing. However, to ensure the Department's systems are 
adequately tested, I believe there needs to be government leadership of 
DT&E.
    Question. Do you believe that the operational and developmental 
testing organizations in DOD and the military services are adequate to 
ensure an appropriate level of testing, and testing oversight, on major 
defense acquisition programs?
    Answer. Yes. I also believe the Department can improve its 
performance in this area by defining test requirements earlier in a 
program and putting more emphasis on early developmental test and 
evaluation activities to reduce the likelihood of late discovery of 
design or production issues. If confirmed, I will continue to work with 
the DASD(DT&E) and DOT&E to ensure the Department conducts effective 
and efficient developmental and operational testing.
                              depot issues
    Question. A decade of overseas contingency operations has increased 
maintenance requirements and expenditures. These requirements and 
expenditures are expected to remain high for several years after the 
conclusion of operations in Afghanistan before they begin to decrease.
    What do you believe the Department has learned from this 
experience, and how will these lessons learned affect, if at all, the 
future of DOD maintenance and logistics?
    Answer. Since overcoming initial issues early in Afghanistan and 
Iraq, the Department has provided superb logistics support to our 
deployed forces. There are a number of lessons learned, some of which 
have already been incorporated into our policies, processes, and 
doctrine. Others are still being documented. We created and have 
institutionalized Combatant Command Deployment and Distribution 
Operations Centers to facilitate the deployment of forces and delivery 
of sustainment supplies. The Department has increased maintenance 
capability to support equipment left in theater and optimally 
structured reset of equipment retrograded with unit redeployments. This 
tailoring has enabled both maximum readiness of materiel in theater to 
support warfighting operations, but also of that CONUS to support force 
generation and training. An example of this optimization can be clearly 
seen in the operations of the Army Field Support Brigades, as well as 
in the tailored reset work packages that address not only the high 
OPTEMPO and harsh theater environments, but also the restoration and 
protection of useful life of our equipment. We have also been able to 
efficiently and effectively augment unit maintenance with contractor 
maintenance support. Finally, we have incorporated Operation Contract 
Support to manage contractors in our policy and doctrine.
    Question. For how many years after the end of combat operations do 
you believe the Department will need to continue to pay for increased 
maintenance to reset and reconstitute the force?
    Answer. Our estimates indicate it will take 2 to 3 years to 
complete reset and reconstitution post-combat operations in 
Afghanistan. This time depends on the velocity of our retrograde 
process, the availability of funding, and the capabilities that will be 
needed in the force structure to meet the Defense Strategy within the 
budget constraints.
    Question. What factors do you believe should govern the 
Department's strategy to manage workload as maintenance requirements 
begin to decrease?
    Answer. We must maintain a ready and controlled source of 
government-owned and -operated depot maintenance capability by 
leveraging the principals of Core and 50/50 statutes. We must also 
sustain the critical capabilities of the private sector. To do this, we 
must leverage the partnership between the public and private sectors, 
and wisely improve our efficiency of maintenance operations in both the 
public and private sectors to continually reduce cost and increase our 
buying power. This holistic approach will ensure strong national 
capabilities.
                        logistics and readiness
    Question. If confirmed, what steps if any would you take to ensure 
that life cycle maintenance requirements and sustainment support are 
considered in the acquisition process for new DOD systems?
    Answer. The Department has made great strides in this area over the 
past 2 years. We have heightened the focus on sustainment by elevating 
the importance of sustainment planning in milestone reviews to a 
comparable level of oversight within acquisition and engineering plans. 
Since issuing guidance on requisite content for sound sustainment 
plans, we have completed and approved the Life Cycle Sustainment Plans 
(LCSPs) for nine Major Defense Acquisition Programs. If confirmed, I 
will support the Department's efforts, working closely with the Service 
acquisition and materiel stakeholders, to develop solid maintenance 
requirements and effective LCSPs that meet system readiness objective 
and deliver affordable product support.
    The NDAA for Fiscal Year 2009 requires the Department of Defense to 
conduct life-cycle cost analysis for new capabilities including the 
fully burdened cost of fuel during the analysis and evaluation of 
alternatives in the acquisition program design trades.
    Question. Do you believe that the fully burdened cost of fuel is an 
appropriate factor for the Department to consider in the evaluation of 
acquisition alternatives?
    Answer. Yes. The Fully Burdened Cost of Energy is a useful 
component of the total life cycle cost estimating process, which helps 
the Department understand the full, long-term expenses the Department 
is signing up to when it commits to a new system. Being scenario based, 
the Fully Burdened Cost of Energy provides an operational cost 
perspective which helps decisionmakers differentiate between the fuel 
and logistics demands of competing system concepts.
                  afghanistan distribution challenges
    Question. Last year, an agreement was reached with the Pakistani 
Government to reopen the ground lines of communication (GLOC), allowing 
military supply convoys to resume logistical support to U.S. forces 
inside Afghanistan. However, since the GLOC were closed for several 
months, the DOD incurred much higher logistical costs having to rely 
entirely upon the Northern Distribution Network (NDN) and aerial 
resupply.
    Are you satisfied with the current rate of logistical resupply flow 
through the GLOC?
    Answer. Since the Pakistan Ground Line of Communication (PAKGLOC) 
re-opened, there have been challenges working through transit authority 
procedures required to increase the flow of cargo movements. Currently, 
the Department is conducting multiple proofs of principle (PoPs) to 
test these new procedures. Initial results are promising. We anticipate 
new cargo movements in the Spring 2013 with larger volumes of 
retrograde cargo moving through Pakistan in the summer timeframe.
    Question. Does the Department have appropriate plans in place to 
provide for the retrograde of equipment from Afghanistan as we prepare 
for the withdrawal of our forces?
    Answer. The Department relies on multiple transportation routes for 
its retrograde operations, including a combination of ground, air, sea, 
and rail. We have a resilient transportation system that provides more 
than one way to support the theater. Additionally, the Department has 
plans for the disposition of U.S. equipment and supplies to enable 
retrograde movements. All military equipment needed for future military 
force needs, except equipment that may still be needed by U.S. Forces 
in Afghanistan, will be returned to the United States, repaired, and 
distributed back to the force. Equipment that will not be needed to 
meet future military needs, which is mostly non-military base operating 
equipment, will be donated to the Afghan Government, transferred to 
other coalition or regional partners, or destroyed in Afghanistan, 
depending on the nature of the equipment and legislated authorities.
    Question. To what extent is the DOD anticipating throughput 
challenges in Pakistan that would limit the DOD's ability to remove 
equipment from Afghanistan?
    Answer. The Department is currently conducting multiple PoPs to 
test the new procedures for movements through Pakistan. Initial results 
are good, and we expect these tests to be successful. We anticipate new 
cargo movements in Spring 2013 with larger volumes of retrograde 
through Pakistan in the Summer timeframe. This will enable two-way flow 
to support both resupply and retrograde operations. The Department's 
transportation plans for retrograde operations include the use of 
multiple routes under varying assumptions, including scenarios with and 
without the use of the PAKGLOC.
    Question. To what extent has DOD developed alternatives to the 
Pakistan GLOC to be able to remove equipment from Afghanistan?
    Answer. The Department has developed multiple transportation routes 
to augment the ability to retrograde from Afghanistan. One is the use 
of the NDN, which is a series of routes through Europe, Russia, and 
Central Asia. Another transportation option is to use a combination of 
airlift and sealift (multi-modal) movement out of Afghanistan. These 
alternatives can and will be used for retrograde operations. However, 
sole reliance on these methods is not ideal for significant volumes of 
retrograde due to cost, limited airfield capability in Afghanistan, and 
the time it will take.
    Question. What challenges remain in developing these alternatives?
    Answer. These transportation alternatives are in place today. We 
anticipate more extensive use of all transportation routes as we 
complete the proofs of principle and work with host nations on customs 
and transit procedures. Afghanistan poses additional challenges based 
on its location, making retrograde operations inherently more difficult 
than Iraq. The movement of personnel is not an issue.
    Question. In a 2011 report to Congress, GAO found that although 
U.S. Transportation Command has established some processes for 
oversight, it does not have full oversight of the distribution of 
supplies and equipment to the warfighter in Afghanistan. GAO 
highlighted several issues to include: a lack of adequate radio-
frequency identification information to track all cargo movements; no 
common operating picture for distribution data and integrated 
transportation systems; complex customs clearance processes in 
Afghanistan and Pakistan that delay shipments; limited information on 
incidents of pilferage and damage of cargo; and ineffective tracking 
and management of cargo containers.
    To what extent, if any, has DOD improved its visibility over 
equipment and supplies in Afghanistan?
    Answer. Our warfighters and other managers have visibility of 
equipment and materiel from a number of sources, and lack of visibility 
has not been identified as a significant problem by our warfighters. 
With that said, Department policy requires all DOD cargo transiting 
Afghanistan to use Radio Frequency Identification tags. This technology 
enables the visibility of cargo during transit and storage. Enhanced 
in-transit visibility through the use of satellite-enabled technology 
is also available for high priority movements. Additionally, we require 
contracted carriers to provide automated updates to DOD systems at key 
points throughout the movement process. Furthermore, in January 2013, 
CENTCOM published a directive to DOD shippers with instructions for 
improving cargo security and the tracking and reporting of shipments 
transiting Pakistan.
    Question. To what extent has DOD developed a common operating 
picture to improve its processes for tracking equipment and supplies in 
Afghanistan?
    Answer. CENTCOM has developed and implemented an automated 
Logistics Common Operating Picture, which includes information on the 
amount of supplies on-hand and personnel and cargo movements supporting 
CENTCOM.
                         nonstandard equipment
    Question. DOD has acquired millions of dollars in tactical 
nonstandard equipment (NSE) to address evolving threats in Afghanistan 
(and previously in Iraq).
    If confirmed, what would be your plan of action to deal with the 
NSE accumulated by the Services over the last several years?
    Answer. Our forces have greatly benefited from the access to rapid 
acquisition of newly emerging technologies and capabilities for Iraq 
and Afghanistan. If confirmed, I will work with the Services as they 
consider future force structure and requirements, and for items that 
are to be retained, that the Services have effective plans to sustain 
this mission-essential NSE.
    Question. What is your assessment of the amount of NSE that has 
been transferred by the Services into programs of record to date?
    Answer. I do not have data on which NSE has transferred to become 
programs of record. The Services continue to carefully evaluate their 
force equipment requirements. Some examples of technologies we are 
keeping and putting into our formations are the Counter Rocket 
Artillery Mortars system that was so effective against the indirect 
fire threat in OIF and OEF, as well as selected MRAP vehicles. If 
confirmed, I will monitor Service actions to transition NSE to programs 
of record.
    Question. To what extent, if any, has DOD identified and planned 
for future maintenance and sustainment costs for any NSE that will have 
to be funded in future budgets?
    Answer. For enduring capabilities, it is important that we budget 
for sustainment. My understanding is that the Services have begun the 
process of determining their maintenance and sustainment costs for NSE 
identified as necessary to meet future force enduring requirements. If 
confirmed I will support and provide oversight to the Services actions 
to monitor and sustain NSE selected for enduring requirements.
                    corrosion prevention and control
    Question. GAO estimates that corrosion damage to equipment and 
weapons systems costs the DOD approximately $22 billion per year. The 
Office of Corrosion Prevention and Control has been in existence for 
almost 2 years now, and a corrosion prevention and control plan (CPCP) 
is now required for all category one acquisitions.
    Do you believe that a CPCP should be considered during the analysis 
of alternatives process or the RFP process?
    Answer. I consider corrosion an important factor in system life 
cycle cost and performance which should be considered during the 
analysis of alternatives (AoA). I support the existing direction to the 
Military Departments to objectively evaluate corrosion as part of 
program design and development activities, and to weigh the trade-offs 
through an open and transparent AoA. Similarly, the RFP process should 
also clearly articulate to industry specifically what our needs are for 
addressing corrosion prevention and control. Without clearly 
articulated requirements in the proposal process, we risk additional 
costs in acquisition or sustainment.
    Question. What is your assessment of existing alternatives for 
hexavalent chromium?
    Answer. I am not currently familiar with the use of or alternatives 
to hexavalent chromium. If confirmed, I will assess the alternatives 
for this material.
                           operational energy
    Question. The NDAA for Fiscal Year 2009 created the position of the 
Assistant Secretary of Defense for Operational Energy Plans and 
Programs
    If confirmed, how would you work with office of the Assistant 
Secretary of Defense for Operational Energy Plans and Programs to 
advance the objectives of that office?
    Answer. If confirmed, I will work with ASD(OEPP) to ensure defense 
energy investments increase military capabilities, provide mission 
success, and lower total costs. I also will assist ASD(OEPP) and 
USD(AT&L) in implementing any necessary changes in the defense 
acquisition system to support these objectives.
    Question. What role do you expect to play, if confirmed, in 
developing strategies to reduce the logistical footprint of deployed 
units operating in hostile environments?
    Answer. The safety and effectiveness of our forces will always be 
my highest priority. If confirmed, I will work with USD(AT&L), the 
ASD(L&MR), the Joint Staff, and the Military Services to ensure we 
optimize our sustainment, maintenance, and materiel reliability to 
reduce the logistical footprint of deployed forces. I will support 
policies that promote technologies and strategies to reduce the 
logistics footprint, and continue to emphasize logistics implications 
as a key factor in the decision processes for new weapon systems.
    Question. What role do you expect to play, if confirmed, in 
developing and pursuing alternative energy sources for the Department 
of Defense?
    Answer. If confirmed, I expect to exercise oversight of the 
Department's efforts to develop and pursue energy innovations that 
advance military missions and capabilities, or innovations that lower 
our base operating costs.
    Question. What is your assessment of DOD's current ability to track 
fuel consumption after point of sale at forward-deployed locations?
    Answer. The Department's ability to track fuel consumption after 
point of sale at forward-deployed locations has improved and continues 
to improve. The Department is collecting quarterly estimates of 
operational energy consumption with increasing granularity, and 
improving its ability to better manage energy in the deployed 
environment. While there are still challenges in tracking fuel 
consumption by contingency base camps and ground vehicles, I am 
confident the Department will continue to increase its ability to 
measure--and, thus manage--consumption of operational energy at 
forward-deployed locations.
    Question. Many of the energy efficiency initiatives that are 
currently being developed are designed for use in high heat desert 
terrains.
    To what extent, if any, is DOD planning and developing energy 
saving equipment and technologies to support the warfighter in other 
environments that may have differing climates?
    Answer. The Departments energy priorities are derived from current 
and projected operational needs, so that our forces can operate 
effectively in every region of the world, in every environment, and 
against every threat. If confirmed, I will ensure that the energy-
saving equipment and technology we are fielding is flexible and 
adaptable across a range of contingencies, and is designed to improve 
our warfighting capability by lightening the load for our expeditionary 
forces, reducing the vulnerability of logistics support lines, and 
optimizing the performance of our systems and operating bases.
    Question. Last July, the Assistant Secretary of Defense for 
Operational Energy Plans and Programs published a policy that any 
alternative drop-in replacement fuel procured for DOD-wide use and 
distribution within the Class III (Bulk) supply chain must compete with 
petroleum products and any awards will be based on the ability to meet 
requirements at the best value to the government, including cost.
    What is your view of this policy?
    Answer. I support this policy. It is prudent for the Department to 
engage in tests and demonstrations that confirm defense equipment can 
operate on a range of fuels; however, as the Department allocates its 
limited resources to ensure it delivers necessary warfighting 
capability, it should only buy large volumes of these fuels when they 
are cost-competitive with petroleum products.
    Question. What is your assessment of section 526 of the Energy 
Independence and Security Act of 2007? What impact, if any, has this 
provision had on the operations and activities of the Department of 
Defense?
    Answer. Section 526 has not restricted the Department from 
purchasing whatever fuel it has needed to support military operations. 
It is my understanding that section 526 applies only to contracts that 
are for the express purpose of buying alternative or synthetic fuel. As 
long as mission capability is not restricted, it is helpful to have 
this guidance that new fuels should not be any more polluting than 
fuels produced from conventional petroleum sources.
    Question. If confirmed, what priorities would you establish for 
Defense investments in energy technologies?
    Answer. If confirmed, my priority will be to focus on energy 
technologies, as well as tactics, techniques, and procedures, that 
improve the capabilities and effectiveness of our military forces, 
reduce our costs, or help meet the needs of our installations. This 
means energy innovations and policies that improve the performance of 
our systems, expeditionary outposts, and even portable equipment 
carried by our personnel.
                         environmental security
    Question. If confirmed, you will be responsible for assisting the 
Under Secretary in the oversight of environmental security issues for 
the Department of Defense.
    What do you see as the most significant challenges facing the 
Department in the area of environmental security?
    Answer. The greatest challenge will be maintaining and improving 
the Department's level of environmental performance given the extremely 
challenging budget environment--to include the threat of sequestration 
to impose across the board cuts despite legal requirements; the 
execution difficulties posed by Continuing Resolutions; and the overall 
tightening of the budget. If confirmed, I will continue to look for 
ways to meet these challenges to protect human health and the 
environment across our enterprise.
    Question. Assuming you are confirmed, what plans if any do you have 
for addressing these challenges?
    Answer. If confirmed, I will continue the aggressive oversight of 
environmental programs, with the goal of minimizing management costs 
and making our organizational structure and performance contracts as 
efficient and effective as possible. I will also continue to emphasize 
strategic R&D investments in technologies to lower the costs associated 
with environmental cleanup and compliance.
    Question. While the Military Departments have made considerable 
progress addressing environmental contamination at military 
installations, there remains a substantial amount of work to be done, 
including the remediation of discarded munitions and Unexploded 
Ordnance (UXO), at current and former DOD sites. The military 
departments have managed to maintain reasonably level funding for these 
cleanup programs over the past several years; however, many of these 
clean-ups will take years to complete and, in the current budget 
environment, the restoration accounts will come under pressure.
    What steps, if any, do you believe are needed to ensure that the 
DOD remediation programs receive adequate funding and make meaningful 
progress, particularly in the detection and clearance of discarded 
munitions and UXO?
    Answer. I believe that continuing the Department's existing 
remediation programs is important, and, if confirmed, I will work to 
balance resources so as not to extend cleanup timelines and jeopardize 
our ability to meet cleanup goals. I also support continued R&D 
investments in programs that can reduce the cost and timelines for 
cleanup. The Department is validating new technology for detection and 
clearance of unexploded ordinance that may dramatically accelerate 
cleanup of these sites and will lower the overall liability of the 
Department.
    Question. How might the Strategic Environmental Research and 
Development Program (SERDP) help with the overall progress of the 
Defense Environmental Restoration program, particularly in view of the 
current fiscal environment?
    Answer. SERDP and its companion program, the Environmental Security 
Technology Certification Program (ESTCP), have and should continue to 
reduce the cost and improve the efficacy of the Department's cleanups 
under the Defense Environmental Restoration Program.
    Question. Technologies that can significantly reduce the costs of 
Unexploded Ordnance (UXO) cleanup that were developed by SERDP are now 
being demonstrated under ESTCP at actual UXO contaminated sites across 
the country. We expect the new cleanup technologies to become the 
standard approach at UXO contaminated sites within a few years, 
reducing the costs significantly. SERDP and ESTCP have already saved 
DOD billions of dollars by developing and transitioning technologies 
for contaminated ground water and sediment sites.
    Answer. SERDP and ESTCP are now turning toward more challenging and 
complex sites that constitute the remaining liability under the Defense 
Environmental Restoration Program. If confirmed I will continue to 
support these programs and work to ensure that they are adequately 
funded and effectively executed.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy USD(ATL)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                           wasteful spending
    1. Senator Nelson. Mr. Estevez, we are often so focused on the next 
budget to be passed that we consider the termination of a program as 
savings. According to a report from Forbes magazine, the Army has 
wasted $32 billion on weapons projects since 1995 and both the Navy and 
Air Force cancelled their share of programs to save money. What lessons 
have we learned from cancelling these contracts?
    Mr. Estevez. We have learned over the years that cancelling 
developmental programs is a mixed proposition.
    When a program becomes less valuable due to changing threats or 
significant technical problems, such cancellations may be exactly the 
right thing to do--we avoid spending even more money on unaffordable or 
nonperforming programs. In such cases, we need to make cancellation 
decisions as early as possible.
    The most important lessons we have learned from major program 
cancellations are to ensure a program is affordable from the start and 
to understand and track the key framing assumptions for each program. 
Blind optimism about long-range affordability does not serve us well; 
we must analyze long-range cost estimates relative to reasonable 
budgetary expectations early during requirements generation to make 
each program affordable. We must also understand the risks to cost and 
schedule inherent in framing assumptions and act early upon any changes 
to avoid incurring large sunk costs on programs. We must control 
requirements creep through methods such as configuration control 
boards.
    Not all sunk costs are squandered when we cancel a program, 
however. Technology and manufacturing knowledge from such programs can 
be applied to some extent in other systems and programs.
    The Department is managing our acquisition processes for improved 
efficiencies through our Better Buying Power initiative.

    2. Senator Nelson. Mr. Estevez, how can we improve our acquisitions 
and procurement processes in the future to avoid this wasteful 
spending?
    Mr. Estevez. The Office of the Under Secretary of Defense for 
Acquisition, Technology, and Logistics has initiated several processes 
to improve acquisitions and procurement in our ongoing Better Buying 
Power initiative efforts. Below are some key elements:
    First, we need to avoid starting or continuing programs that cannot 
be produced and supported within our future long-range budgets. Our 
process for affordability analysis must involve the requirements and 
resource communities to scope requirements early, set lifecycle cost 
constraints on programs, and enforce those constraints through cost-
control measures and possible early tradeoffs of requirements.
    Second, if we consider starting an effort with the intent of 
developing technology or designing capabilities, we must carefully 
select those efforts and weigh the costs and benefits of new 
technologies as we learn more as the program progresses. Then we must 
decide whether to halt an effort that initially appeared promising, or 
for which we may not need production in quantity in the short-term. In 
doing so, our program reviews and gates must be meaningful, deliberate, 
and more effective.
    Third, we need to understand and monitor the key assumptions that 
frame each developmental program. Developing systems that push the 
state-of-the-art involves risks, uncertainty, and informed assumptions 
on technologies and operational paradigms. We must overtly consider 
these framing assumptions at program initiation, then establish and 
monitor indicators as assumptions prove to be true or not. Then we can 
intervene early to solve the problem or cancel the program before 
sinking significant resources into an unviable or immature capability.
    Fourth, we must continue to increase the cost consciousness of the 
acquisition workforce. It is critical that we target affordability, 
control cost growth, and incentivize productivity and innovation while 
ensuring the best support to the warfighter. Our efforts must span 
across all acquisition and sustainment activities. In order to be 
successful, we need to instill a culture of cost consciousness through 
sound business acumen, establishing clear expectations, and 
recognizing/rewarding the right behavior.

                            f-35 acquisition
    3. Senator Nelson. Mr. Estevez, the National Defense Authorization 
Act (NDAA) for Fiscal Year 2013 called for the purchase of 29 F-35 
Joint Strike Fighter aircraft. Sequestration will slow the acquisition 
of these aircraft by three to four each year. How will sequestration 
affect the per unit cost of the future purchase of an F-35?
    Mr. Estevez. The F-35 program was established on the concept of 
economies of scale for production costs. Any reduction in the 
procurement quantity of F-35s in a given year, either from our 
international partners or from a U.S. Service, will result in an 
increase in the cost of each remaining jet. The Department is assessing 
the impact that sequestration will have on the fiscal year 2013 budget; 
however, if sequestration is continued over the next 10 years, the 
impact on the F-35 program will be significant. In one scenario the 
Department of Defense (DOD) is considering, sequestration could result 
in a reduction of seven to nine U.S. aircraft from the fiscal year 2013 
Low Rate Initial Production Lot 7 buy across all three Services 
producing a corresponding increase in the cost per jet in Lots 7-11 of 
approximately 2.3 percent.

    4. Senator Nelson. Mr. Estevez, what is the effect on our allies 
and their desire to purchase F-35s?
    Mr. Estevez. The F-35 program was established on the concept of 
economies of scale for purchases. Many of our allies and partners are 
facing financial challenges similar to what we are encountering. While 
there continues to be strong support from the Services in these 
countries, at the political level we are seeing increased scrutiny and 
pressures. Any change in the per unit cost of the F-35 in a given year 
may cause our partners to reassess their purchases in that year and 
potentially delay their procurement.

             joint surveillance target attack radar system
    5. Senator Nelson. Mr. Estevez, the Joint Surveillance Target 
Attack Radar System (JSTARS) aircraft have proven themselves in all 
recent conflicts, including Libya. The decision has been made to 
terminate the reengining program and the Air Force has indicated a need 
to upgrade the avionics sensors, as well as other systems to keep the 
aircraft viable. In light of the current budget environment and the 
need to recapitalize the fighter, bomber, and tanker fleet 
concurrently, do you believe it makes sense to modernize the JSTARS 
platform?
    Mr. Estevez. Yes, it makes sense to modernize but such 
modernization must be prioritized along with other critical programs. 
Due to severe fiscal limitations, DOD is rationalizing how best to 
allocate its continued investment in the E-8C JSTARS modernization. The 
JSTARS program currently includes funds to operate and maintain the 
system through the Future Years Defense Program. In this austere budget 
environment, the limited JSTARS funding available was prioritized to 
address diminishing manufacturing sources in order to keep the aircraft 
mission capable. Any future JSTARS modernization or recapitalization 
will leverage ongoing technology development from other Defense 
programs and will be weighed against other DOD priorities.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                      contracting and acquisition
    6. Senator McCaskill. Mr. Estevez, I have already reached out to 
DOD to ask how officials plan to implement the major components of my 
wartime contracting reform legislation, which was signed into law as 
part of the NDAA for Fiscal Year 2013. Many of those provisions will 
fall within the responsibility of the Acquisition, Technology, and 
Logistics (AT&L) secretariat to carry out, including those that pertain 
to current contingency in Afghanistan. Will you commit to identifying 
whether AT&L has sufficient personnel to address the reforms required 
in these provisions?
    Mr. Estevez. Yes, if confirmed, I will commit to identifying 
whether AT&L has sufficient personnel to address the reforms required 
in these provisions.

    7. Senator McCaskill. Mr. Estevez, are you committed to ensuring 
that the reforms are integrated into planning and training so that they 
will not be ignored in future contingencies? If so, what steps do you 
commit to taking?
    Mr. Estevez. Yes, I remain fully committed, in partnership with 
appropriate DOD organizations, to include the Joint Staff, and the 
combatant commands, to integrate planning and training reforms to 
ensure improved contingency contracting performance and management 
during future contingencies.
    Specifically, I will, if confirmed, continue ongoing efforts and 
initiate new efforts to institutionalize process tools (e.g., 3 in 1; 
Contingency Acquisition Support Module, and other business and planning 
tools used across the combatant commands) and doctrine that facilitate 
and strengthen both Contingency Contracting and Operational Contract 
Support (OCS). The Department has established the OCS Functional 
Capabilities Integration Board to actively monitor all ongoing and 
planned OCS related initiatives across the Department. The Board meets 
quarterly, or more often, as required, to conduct independent 
assessments and analyses of OCS capabilities (to include supporting 
doctrine, organization, training, materiel, leadership and education, 
personnel, and facilities of the armed forces). Additionally, the 
Department is in the process of revising pertinent guidance to address 
any weakness in our training with several new and revised OCS courses 
in the development phase.

    8. Senator McCaskill. Mr. Estevez, in a constrained fiscal 
environment, it is more important than ever to ensure that there is a 
sufficient number of trained acquisition and other management personnel 
capable of overseeing, not just executing, contracts by DOD to ensure 
that U.S. taxpayers' dollars are being spent wisely. How will you 
ensure that the quality and current level of oversight of contracts is 
maintained despite austere budgets?
    Mr. Estevez. I agree contract oversight is a key element of 
ensuring taxpayer dollars are spent wisely. The largest portion of DOD 
contract oversight rests with the Defense Contract Management Agency 
(DCMA) and the Department has taken steps, aided by the Defense 
Acquisition Workforce Development Fund (DAWDF), to grow and strengthen 
the DCMA workforce. Since 2008, DCMA has increased its acquisition 
workforce by over 15 percent, and projects continued growth in the 
foreseeable future. Additionally, DCMA has bolstered its training 
programs and partnered with the Defense Acquisition University to 
establish the College of Contract Management to provide critical 
courseware that is both relevant and rigorous. If confirmed, I will 
work with the rest of the Department leadership to sustain these gains.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                              efficiencies
    9. Senator Inhofe. Mr. Estevez, for years DOD has embarked on 
several efficiency campaigns. Both Secretaries Gates and Panetta have 
included efficiency initiatives as part of the President's budget 
submission. Do you believe DOD has adequate tools to track 
efficiencies?
    Mr. Estevez. Yes, DOD has the tools to track efficiencies. As you 
stated, Secretaries Gates and Panetta have included efficiency 
initiatives as part of the President's annual budget submission, and 
required the Department to track the status of the initiatives. The 
Department continues its process of tracking the status of each 
efficiency initiative to determine if the projected savings are on 
track, while at the same time assessing the associated program and 
milestone risks. For those efficiency initiatives under the purview of 
the Office of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics, our efficiencies remain valid and at the 
projected levels.

    10. Senator Inhofe. Mr. Estevez, how successful has DOD been in 
realizing the efficiencies already assumed in previous budget requests?
    Mr. Estevez. DOD has been very successful implementing and 
realizing efficiencies assumed in recent budgets. There is a robust 
process of tracking the status of each efficiency initiative to 
determine if the projected savings are on track and whether there are 
associated program and milestone risks. For those efficiency 
initiatives under the purview of the Office of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, our efficiencies 
remain valid and at the projected levels. These initiatives enabled the 
Department either to reduce funding requirements or apply them to other 
high-priority requirements.

    11. Senator Inhofe. Mr. Estevez, what lessons have you learned in 
the assumptions used in taking efficiencies?
    Mr. Estevez. I have learned that no matter how many times you have 
looked for efficiencies in the past, there is always a way to improve 
the level of efficiency of your overall portfolio. However, in 
identifying efficiencies, it is paramount that the affected functional 
communities and oversight organizations be involved, and that any 
barriers to implementing or executing efficiencies be identified and 
addressed.

                  depot impact from decreased budgets
    12. Senator Inhofe. Mr. Estevez, you mentioned in your answers to 
the advance policy questions that ``We must maintain a ready and 
controlled source of Government-owned and -operated depot maintenance 
capability by leveraging the principles of core and 50/50 statutes.'' 
The prospect of a $42 billion cut from the defense budget this year 
from sequestration and the pressure of underfunded readiness accounts 
due to the Continuing Resolution will have a devastating effect on 
depot and shipyard maintenance activities for the rest of the year. In 
your opinion, in this unprecedented fiscal environment, what can be 
done to preserve our defense depot capabilities?
    Mr. Estevez. While leveraging the principles of core and 50/50 
statues will help us preserve the depot and shipyard critical 
capabilities, the magnitude of the reductions and shortfalls are 
forcing trade-offs between priority requirements across the Department. 
Negative impacts on depot workloads are unavoidable given the need to 
sustain operations in Afghanistan and meet our global commitments.

    13. Senator Inhofe. Mr. Estevez, how will you maintain the critical 
skills of our depot and shipyard employees?
    Mr. Estevez. DOD is required by title 10, U.S.C., section 2464, to 
maintain a core logistics capability. However, the reductions 
associated with sequestration have the potential to erode critical 
skills and capabilities over the long-term. If confirmed, I will ensure 
we attempt to protect critical skills by workloading the most critical 
capabilities.

    14. Senator Inhofe. Mr. Estevez, if confirmed, what will you do to 
maintain an efficient and consistent workload through military depots 
if defense budget sequestration is allowed to occur?
    Mr. Estevez. Unfortunately, due to operating under a Continuing 
Resolution for half of the fiscal year, implementation of sequestration 
and higher than anticipated Overseas Contingency Operations costs, the 
Services are reducing and cancelling third and fourth quarter depot 
inductions. Given the concentrated effect of this fiscal situation, the 
Services do not have sufficient funding to maintain current, 
consistent, nor efficient depot workload. In this environment, DOD and 
the Services will smooth workload adjustments by slowing throughput of 
existing funded work and pacing the remaining funded inductions while 
attempting to satisfy readiness requirements.

    15. Senator Inhofe. Mr. Estevez, please describe how you plan to 
leverage the principles of core and 50/50 statutes during this budget 
crisis.
    Mr. Estevez. Adherence to core and 50/50 statutes will help us 
preserve the depot and shipyard critical capabilities. Within that 
framework, DOD will allocate resources and execute schedules to 
minimize negative impacts to our depot capability and protect critical 
maintenance functions. This should enable the Department to protect 
critical capabilities in both the public and private sectors.

                             depot workload
    16. Senator Inhofe. Mr. Estevez, the Military Services and the 
National Guard all operate military depots with a certain degree of 
capacity and workload duplication. The Logistics Management Institute 
pointed out in a February 2011 report that ``at the strategic level, 
enhanced, integrated governance is required to best manage the day-to-
day workload across all organic depot-level capabilities.'' Do you 
agree with this statement?
    Mr. Estevez. Yes, cross-Service strategic governance is provided 
through DOD regulations and instructions and executive committees and 
boards, such as the Maintenance Executive Steering Committee, the Joint 
Group on Depot Maintenance, and the Joint Logistics Board. The 
Department continually improves its strategic governance by enhancing 
the effectiveness and efficiency of these executive bodies. In 
addition, the Department is in the final stages of issuing a revised 
Depot Source of Repair instruction that will enhance strategic 
assignment and establishment of depot capability.

    17. Senator Inhofe. Mr. Estevez, in your opinion, what needs to be 
done within DOD to minimize workload duplication at a time when 
workload will be decreasing?
    Mr. Estevez. While we have improved cross-Service collaboration and 
have had some success in workload reallocation to improve efficiency, 
DOD is limited in addressing capacity duplication with respect to 
existing capability. To mitigate unnecessary assignment of future 
workload, the Department is in the final stages of issuing a revised 
Depot Source of Repair instruction to enhance strategic assignment and 
establishment of depot capability by requiring single-departmental and 
single-Service sources of repair.

    18. Senator Inhofe. Mr. Estevez, are we at the point that the 
Services should look to consolidating similar workloads, such as 
aircraft engines, into one facility?
    Mr. Estevez. Yes, we are. Our current fiscal situation demands that 
we look at all opportunities to enhance efficiency and reduce our cost 
of operations. While we have improved cross-service collaboration and 
have had some success in workload reallocation to improve efficiency, 
DOD is limited in addressing capacity duplication with respect to 
existing capability. However, the Department is implementing a Depot 
Source of Repair instruction to prevent unnecessary assignment of 
future workload.

    19. Senator Inhofe. Mr. Estevez, to what extent should the Military 
Services be allowed to manage their depot activities taking into 
consideration their unique mission requirements?
    Mr. Estevez. The Services should manage their depot workload to 
meet their mission requirements; however, DOD's draft Depot Source of 
Repair instruction will ensure consideration of existing depot 
capability prior to establishing duplicate capability. Additionally, 
the Department's joint governance bodies, such as the Maintenance 
Executive Steering Committee, the Joint Group on Depot Maintenance, and 
the Joint Logistics Board enable collaboration and strategic 
decisionmaking.

    20. Senator Inhofe. Mr. Estevez, do you believe the methodology for 
the determination of core depot requirements needs to be strengthened? 
If so, how?
    Mr. Estevez. Yes, DOD is currently reviewing DOD Instruction 
4151.20, ``Depot Maintenance Core Capabilities Determination Process,'' 
and will assess current methodology with the objective of strengthening 
the requirements determination process. Given where we are in the 
assessment process, it is premature to identify specifics.

                              depot policy
    21. Senator Inhofe. Mr. Estevez, as you may know, we experienced a 
bit of turmoil over the last year on Federal statutes intended to 
provide guidance for the management of defense depot requirements. The 
Senate was successful in December in restoring the traditional 
framework, which has resulted in a balance over the years of a 
consistent workload for depots. Part of the agreement with DOD was to 
inform Congress of any potential depot policy changes before they take 
place. If confirmed, will you agree to share with Congress any concerns 
and/or policy issues related to the management of military depot 
activities before promulgating any policy changes to the Military 
Services?
    Mr. Estevez. Yes, if confirmed, I will share any policy changes 
prior to implementation.

    22. Senator Inhofe. Mr. Estevez, do you currently anticipate 
proposing any changes to depot policies?
    Mr. Estevez. We are reviewing current polices for potential 
updates. We anticipate improvements in how we define depot maintenance 
to include clarification of modifications coincident with maintenance 
operations and software maintenance. We also anticipate adjustments 
that would address maintenance in support of systems that were acquired 
in nontraditional acquisitions. If confirmed, I look forward to working 
with the committees as we develop these proposals and will ensure our 
depot policies follow congressional intent.

                        better buying power 2.0
    23. Senator Inhofe. Mr. Estevez, DOD is currently developing its 
latest initiative designed to achieve continuous improvement. This 
enterprise, called Better Buying Power 2.0, places particular 
importance on improving not only the technical qualifications but 
experience and leadership skills of DOD's acquisition workforce. 
Ensuring DOD's acquisition workforce has greater experience and 
improved technical competence in order to achieve the goals of 
acquisition reform was a central argument in Ronald Fox's book, 
``Defense Acquisition Reform, 1960 to 2009: An Elusive Goal,'' and the 
Defense Science Board's 2009 study titled, ``Creating a DOD Strategic 
Acquisition Platform''. However, what is less certain are the means by 
which DOD intends to achieve a better trained and more experienced 
acquisition workforce. What are DOD's specific plans to increase the 
skills and experience of its acquisition workforce through the Better 
Buying Power 2.0 initiative?
    Mr. Estevez. DOD is focused on increasing the professional skills 
and experience of its acquisition workforce through the Better Buying 
Power 2.0 initiative, which includes establishing higher professional 
qualification standards for Key Leadership Positions (KLPs) and the 
``Certification to Qualification'' initiative.
    The KLP initiative will define mandatory KLPs and establish core 
position requirements, qualifications, and attributes. The 
``Certification to Qualification'' structure framework is currently in 
development and will focus on the demonstration and documentation of 
the skill sets required by the acquisition workforce in order to 
achieve successful acquisition results. The Defense Acquisition 
Workforce Development Fund (DAWDF) has proven to be a critical asset 
for the Department to increase the capacity and capability of its 
acquisition workforce. The DAWDF has enabled the DOD Components 
(Services, Defense Agencies, and other DOD organizations) to provide 
targeted training and leadership development programs for acquisition 
workforce personnel.

                         defense production act
    24. Senator Inhofe. Mr. Estevez, as you may know, I've expressed 
concern that the wide ranging authorities contained in the Defense 
Production Act (DPA) are being used by DOD to spend $170 million for 
the design and construction of a commercial biofuels refinery. Given 
the current budget crisis facing DOD are there higher priorities for 
the DPA, other than to construct a biofuels refinery, that are not 
currently funded?
    Mr. Estevez. As one of the world's largest consumers of petroleum, 
the Department has an interest in diversification of fuel supplies as a 
hedge against potential supply disruptions, especially for our legacy 
fleet of ships and aircraft, which will be with us for decades to come. 
This initiative is consistent with the intent of the authorities of 
Title III of the Defense Production Act, which are uniquely focused on 
enabling multiple departments to leverage cost sharing with the private 
sector, and investing in capital expenditures, such as facility 
retrofits or wholesale construction.
    The authority was specifically created to promote industrial 
production that would meet essential national defense requirements and 
assist in creating economically viable production capabilities. In 
addition to the biofuel initiative, the Title III Program is continuing 
to make significant investments in almost forty efforts by creating or 
expanding domestic production capabilities for essential materials and 
technologies. These include advanced lithium ion batteries for space 
and military applications, carbon nanotube and advanced composites for 
high-performance structural components, specialty steels, lightweight 
ammunition, and armor and advanced electronic components for next-
generation radars and electronic warfare applications. We believe we 
are appropriately using DPA Authorities to meet our key priorities.

    25. Senator Inhofe. Mr. Estevez, do you think that biofuels are a 
higher priority than the urgent requirements identified by the DPA 
Committee such as telecommunications security and the manufacturing of 
critical materials for military weapon systems by a country other than 
China? Please provide a list of the initiatives required to address 
shortfalls in metal fabrication, power and energy, telecommunications, 
and lightweight materials that are not currently funded.
    Mr. Estevez. There are no unfunded DPAC initiatives. The biofuel 
initiative is being developed and executed concurrently with other 
important DPA Title III initiatives that will benefit our national 
defense needs and is not diverting resources from other DPA 
investments. The DPAC has recommended the following projects for which 
funds are available.

    1.  Metal Fabrication Study Group Heavy Forging Initiative: The DPA 
Title III Executive Agent is presently negotiating with the sole 
remaining domestic heavy forging company to modernize and expand their 
heavy forging capabilities that are critical for naval and other 
defense applications.
    2.  Telecommunications Study Group Optical Networks Initiative: The 
DPAC is working with interagency customers, including DISA and DoE that 
have identified a need for trusted domestic sources of hardware to 
support optical telecommunications capabilities.
    3.  Lightweight Materials Study Group: The DPAC is further defining 
interagency requirements for an investment in lightweight materials. 
Projects being developed include low cost carbon fiber and magnesium 
alloy processing.
    4.  The Power and Energy Study Group is developing initiatives for 
flexible solar cells for application such as Unmanned Aerial Vehicles 
as well as soldier portable power and power switching devices for power 
grid applications.

                           acquisition reform
    26. Senator Inhofe. Mr. Estevez, for the past several years, the 
Chiefs of the individual Services have repeatedly stated requirements 
creep is one of the major factors creating increased costs and delays 
in the acquisition of weapon systems. Specifically, additional 
capability requirements continue to be added during the development of 
weapons systems. Among other difficulties created by additional 
requirements is the redesign, and even rebuilding, of weapons systems. 
These concerns continue despite the fact the Joint Requirement 
Oversight Council must approve of any requirements changes. Therefore, 
what additional steps is DOD using to ensure requirements creep is 
reduced and to reform the Joint Capabilities Integration Development 
System?
    Mr. Estevez. As a key factor in mitigating cost and schedule risk, 
control of requirements (including prevention of creep) is a priority 
Office of the Under Secretary of Defense for Acquisition, Technology, 
and Logistics (USD(AT&L)) objective. DOD efforts are focused on 
definition of affordable, technically-executable requirements earlier 
in program development, identification of cost-informed tradespace, and 
robust oversight of requirements stability. Several initiatives have 
been introduced to address the drivers of changing requirements. 
Service Acquisition Executive-chaired Configuration Steering Boards 
(CSB) are intended as an oversight and controlling mechanism for 
proposed changes to requirements, stipulating annual identification of 
de-scoping options to reduce program cost or technical/schedule risk, 
and continuous monitoring of requirements stability. The USD(AT&L) 
Better Buying Power 2.0 initiative and DOD Instruction 5000.02 revision 
both advocate the CSB as a best practice to manage changes to 
requirements.
    Recent revisions to the Joint Capabilities Integration and 
Development System process and business rules for the Joint 
Requirements Oversight Council have led to more flexible, rapid review, 
and, if necessary, modification of validated requirements that drive 
program cost or schedule growth beyond affordability caps. In addition, 
the Vice Chairman of the Joint Chiefs of Staff; USD(AT&L); and 
Director, Cost Assessment and Program Evaluation, as well as Service 
Vice Chiefs and Acquisition Executives, recently agreed to establish a 
periodic leadership forum to synchronize requirements, acquisition and 
programming, and budgeting activities. This will ensure further top-
level leadership attention to emerging program difficulties caused by 
changing requirements and facilitate early engagement to ensure 
programs remain on track to provide timely and cost-effective 
capabilities to the warfighter.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
             ohio-class submarine replacement/modernization
    27. Senator Chambliss. Mr. Estevez, you will be dealing with a 
litany of challenges from current budget constraints. According to your 
duties, you will aid in the establishing of policies for acquisition 
(including procurement of goods and services, research and development, 
developmental testing, and contract administration) for all elements of 
DOD. There is concern that in this time of fiscal uncertainty, the 
replacement of the Ohio-class submarine, a requirement for past Senate 
ratification of the new Strategic Arms Reduction Treaty (START), will 
be overlooked or delayed. How will you balance and maintain oversight 
of the modernization of crucial programs, such as the Ohio-class 
replacement program, during your time as the Under Secretary?
    Mr. Estevez. DOD is dedicated to recapitalizing the SSBN force to 
provide the Nation's most survivable deterrence capability. The 
Department remains committed to an ultimate SSBN force level of 12, 
which is required to meet current U.S. Strategic Command (STRATCOM) 
strategic deterrence requirements.
    To balance DOD priorities and meet fiscal constraints, the 
President's budget request for fiscal year 2013 shifted Ohio-class 
replacement's (OR) lead ship construction from fiscal year 2019 to 
fiscal year 2021 with all follow-on submarines also being shifted 2 
years. The Department remains committed to accomplishing the design and 
construction in the most cost-effective manner possible.
    This delay results in a 10-year reduction in SSBN force level. 
Delaying the start of construction adds risk to the Navy's ability to 
meet current STRATCOM requirements in the 2030s; however, during this 
time, neither the Ohio-class (nor the Ohio replacement) will have major 
overhauls planned, helping to mitigate the risk associated with a 
reduced force level during this period. The Navy will be closely 
managing this risk during this transition period. By 2042, OR 
construction plans will return the SSBN force level to 12, supporting 
the start of extended maintenance periods for the new class and 
removing on average 2 SSBNs from the operational fleet per year.
    This delay will not materially affect the ability of the Department 
to support the President's commitment to a safe, secure, and effective 
nuclear deterrent as long as nuclear weapons exist. I believe that we 
must continue to aggressively scrutinize each of our programs to ensure 
we maintain critical capabilities in a fiscally responsible manner, 
which includes force modernization efforts such as the Ohio-class 
replacement.

                           acquisition waste
    28. Senator Chambliss. Mr. Estevez, DOD, at times, has a dismal 
record in regards to its acquisition programs. In a report by the 
Center for Strategic and Budgetary Assessment, they estimate that in 
the last decade alone, $46 billion has been utilized on programs that 
were never fielded to the force. Wasteful spending must be mitigated 
and eliminated in regards to our defense acquisition programs. What 
overhaul or changes will you implement to ensure that acquisition 
programs are feasible and executable?
    Mr. Estevez. If confirmed, I will continue to support the evolution 
of the Department's Better Buying Power initiatives and related 
activities. I will facilitate the implementation of affordability 
analysis and cost constraints on programs; in particular, this will 
involve monitoring and enforcing affordability caps while working with 
the Service Acquisition Executives and the requirements community to 
address cases where, despite all efforts to control costs, the caps 
cannot be met. In addition, I will expand the use of identifying and 
monitoring key framing assumptions as a tool for informing decisions as 
early as possible.
    Throughout all of these activities, I will support the development 
of our acquisition workforce. Program feasibility and executability 
rely on our ability to work openly and intelligently with our partners 
outside the immediate acquisition community to inform their decisions 
and expectations as to what capabilities our technology and industrial 
base can provide and at what cost and schedule.

                           small business act
    29. Senator Chambliss. Mr. Estevez, there is inherent value of 
small businesses in our economy which support public good especially in 
the economic advancement of disadvantaged demographics such as 
Veterans, Native Americans, Women, and Minorities. However, the 
Military Services all struggle to reach the 23 percent small business 
award goal set forth in the legislation of the Small Business Act. The 
Services often feel pressure to award a contract to small business to 
reach that goal, sometimes at greater expense to the taxpayer and lower 
quality to the warfighter. As a consequence, this adversely affects the 
cost and quality of capabilities needed by our warfighters. Also, 
equally worthy organizations such as non-profit institutions or 
educational organizations are excluded from contract competition. Given 
the current budget crisis facing DOD, how should we amend the Small 
Business Act to better serve the taxpayers and the warfighters?
    Mr. Estevez. I believe that the Small Business Act, as implemented 
in the Federal Acquisition Regulation (FAR) and DOD FAR Supplement, 
properly protects the best interests of our warfighters and the 
taxpayers and, at this time, I do not believe that changes to the Small 
Business Act are needed to achieve that objective.
    Although the Small Business Act requires that the Government-wide 
goal for small business prime contracts be established at not less than 
23 percent, the Small Business Administration negotiates with agencies 
to establish individual agency goals that, in the aggregate, comprise 
the Government-wide goal. The fiscal year 2013 DOD goal for Small 
Business prime contracting is 22.5 percent. Among the Military 
Services, the Department of the Army has consistently exceeded the DOD 
goal, averaging 24.06 percent between fiscal year 2009 and fiscal year 
2012.
    Furthermore, it has not been my experience that awarding contracts 
to small businesses has resulted in greater expense to the taxpayer and 
lower quality to the warfighter. I note in this regard that the FAR 
Part 19.501(g) provides that, ``Except as authorized by law, a contract 
may not be awarded as a result of a small business set-aside if the 
cost to the awarding agency exceeds the fair market price.'' FAR Part 
9, pertaining to contractor qualifications, prescribes the policy at 
FAR Part 9.103 that, ``Purchases shall be made from, and contracts 
awarded to, responsible prospective contractors only.'' I believe DOD's 
acquisition workforce strives to ensure that awarded contracts 
represent the best value to the Government and taxpayers, while 
ensuring that quality goods and services are provided. In my 
experience, rather than adversely affecting the cost and quality of 
capabilities, small businesses are an important source of cost-
effective innovation critical to supporting the needs of our 
warfighters.

    30. Senator Chambliss. Mr. Estevez, how would you direct the 
Services to implement current exceptions to the FARs to protect 
educational or other non-profit institutions as well as our ability to 
achieve industrial mobilization?
    Mr. Estevez. This is an important area and, if confirmed, I will 
monitor it closely. I believe the FAR permits educational and other 
non-profit institutions to participate in full and open competition for 
DOD procurements. I am unaware of instances where they have been 
prohibited from doing so. Additionally, protecting our ability to 
achieve industrial mobilization and protecting educational or other 
non-profit institutions providing critical support in this area can be 
addressed using FAR Part 6.302-3. This regulation provides that ``Full 
and open competition need not be provided for when it is necessary to 
award the contract to a particular source or sources in order: (i) To 
maintain a facility, producer, manufacturer, or other supplier 
available for furnishing supplies or services. to achieve industrial 
mobilization,'' or ``(ii) To establish or maintain an essential 
engineering, research, or development capability to be provided by an 
educational or other nonprofit institution or a federally funded 
research and development center.''
    Furthermore, most of DOD's work with educational and other non-
profit institutions takes place pursuant to grant regulations rather 
than under the FAR. Therefore, at this time, I do not feel that it is 
necessary to provide additional direction to the Services to address 
these issues.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                        defense industrial base
    31. Senator Ayotte. Mr. Estevez, in your responses to the advance 
policy questions, you say that you are: ``concerned about the impact 
that further defense budget cuts would have on the ability of the 
[industrial] base to provide the broad range of products and services 
that the Department and our Nation need.'' What impact would defense 
sequestration and a full year Continuing Resolution have on our defense 
industrial base?
    Mr. Estevez. Although a full year Continuing Resolution did not 
materialize, Defense sequestration is expected to lead to unintended, 
unsafe, and wasteful consequences for the Department, some of which 
will have secondary effects that last for years. Sequestration will 
degrade capital market confidence in the defense industry. Companies 
have been less willing to make internal investments in their defense 
portfolio, including investments in innovation and design. The impact 
of sequestration will be even greater on smaller firms at the lower 
levels of the supply chain, where much of the innovation takes place. 
These smaller firms often lack the capital structure to withstand 
prolonged uncertainty. As a result, we expect to see additional merger 
activity and vertical integration at the lower tiers. Some firms, 
particularly the small firms with more fragile capital structures, may 
have to close their doors completely. Continued technological 
innovation and the financial viability of our defense industrial base 
are strongly in our national interest.

    32. Senator Ayotte. Mr. Estevez, what impact would this damage to 
our defense industrial base have on our warfighters?
    Mr. Estevez. With reductions in funding, there is a likelihood that 
market forces and dynamics will lead to a restructuring of our 
industrial base. In a normal downturn cycle, these forces, and 
competition in general, can be positive in that they ensure industry is 
cost-effective and providing the greatest value for the taxpayer's 
investment. However, in a rapid or unstructured decline, the impact can 
have long-term negative consequences.
    In the near-term, we could expect to see some consolidation within 
the smaller and mid-size firms in the industrial base, which may siphon 
away some critical skills, particularly in the areas of engineering and 
design. Our technological superiority on the battlefield relies on the 
skills of the engineering and design teams within industry. The loss of 
these design teams could have a long-term negative impact on the 
Department's ability to field the capabilities our warfighters need.
    Recognizing the changing nature of the fiscal outlook, in 2011, the 
Department implemented a sector-by-sector and tier-by-tier approach to 
assessing the industrial base. This approach methodically assesses the 
criticality and fragility of DOD vendors, across sectors and down 
through the tiers, to identify critical skills and capabilities that if 
lost, could negatively affect the ability of industry to satisfy DOD 
requirements when called upon. In part, because of these analyses, the 
Department is better able to inform decisionmakers in the Services and 
at the Department level of the potential industrial capability impacts 
of budget decisions.

    33. Senator Ayotte. Mr. Estevez, how would this impact our national 
security?
    Mr. Estevez. Defense cuts must be carefully managed to minimize the 
impact on national security. With reduced investment in the private 
sector, it is logical to expect some job losses as industry right-sizes 
to support the Department's needs. Defense cuts may disproportionately 
impact smaller firms at the lower levels of the supply chain because 
these firms lack the capital structure to withstand prolonged cuts. As 
a result, we will see additional merger activity and vertical 
integration at the lower tiers of the defense industrial base as 
companies reduce capacity to meet demand. This merger activity could 
lead to the loss of innovation and design capabilities in the 
industrial base. Mergers may result in reduced competition, which the 
government will have to monitor or address on a transaction by 
transaction basis. With reductions in design capabilities and 
production capabilities, we may see longer timelines to field, 
maintain, or overhaul equipment. We may also need, over the long-term, 
to invest significantly to restore lost capability and capacity during 
a crisis.
                                 ______
                                 
               Questions Submitted by Senator Mike S. Lee
                                biofuels
    34. Senator Lee. Mr. Estevez, in 2012, the Navy undertook the 
expensive ``Great Green Fleet'' demonstration, purchasing 450,000 
gallons of biofuel at $26 a gallon for a total of $12 million spent on 
fuel for just one demonstration. The Air Force similarly spent $639,000 
on 11,000 gallons of biofuels for a demonstration in 2012, costing the 
taxpayer $59 per gallon. With the prospect of sequestration and a much 
tighter defense budget in coming years, do you believe that the 
military should continue such large-scale demonstrations using 
biofuels? Please provide a yes or no answer, and if answering yes, 
please provide a justification as to why programs involving biofuels 
should be prioritized over other research and development programs.
    Mr. Estevez. Yes, I believe that DOD should continue its modest 
investment in alternative fuels. As one of the world's largest 
consumers of petroleum, the Department has an interest in 
diversification of fuel supplies as a hedge against potential supply 
disruptions, especially for our legacy fleet of ships and planes, which 
will be with us for decades to come. Over the next 5 years, 96 percent 
of the Department's funding to improve operational energy use is 
devoted to reducing the amount of fuel required for military 
operations. The remaining 4 percent is a relatively small, but 
important investment in alternative fuels, which is a longer term 
strategy for our energy security. Most of this investment ensures that 
our equipment can operate on a wide range of fuels, so we are prepared 
if and when alternative fuels become commercially available. As 
petroleum is a finite resource, we believe this to be a prudent 
investment, and we have been performing these types of activities since 
2003.
    The Department's primary alternative fuels goal is to ensure 
operational military readiness and further the flexibility of military 
operations through the ability to use multiple reliable fuel sources. 
To help achieve this goal, we released the DOD Alternative Fuels Policy 
for Operational Platforms in July 2012. The policy confirms that all 
investments are subject to rigorous, merit-based evaluation and that 
the Department will not make bulk purchases unless they are cost 
competitive with petroleum products. To date, the Department has only 
purchased relatively small test quantities of alternative fuels, which 
are used in testing, evaluation, or demonstration activities. These 
purchases are mostly prototypes and should not be equated with 
commercial fuels purchases. I will ensure that the Department complies 
with the existing internal policy.

                       future acquisition process
    35. Senator Lee. Mr. Estevez, with the prospect of sequester cuts 
to DOD this year and continuing cuts through the next 9 fiscal years, 
we must change the way that acquisitions are conducted in order to be 
more efficient and cost effective. Necessary acquisitions, such as our 
next generation fighter jet, have been plagued by delays and budget 
overruns. What lessons have been learned so far from the F-35 program 
that you will implement in future acquisitions?
    Mr. Estevez. There are a number of lessons from the F-35 program 
that we are applying across the acquisition structure. The previously 
approved level of concurrency in the F-35 program was based on the 
expectation that improvements in engineering design tools and modeling 
and simulation capabilities would result in a reduced level of 
discovery in flight test compared to our historical experience with 
similar acquisition programs. However, we learned those assumptions 
were invalid and they have not replaced the need for careful and 
thorough developmental testing of complex weapons systems. We need to 
ensure acquisition strategies are based on sound technological 
judgment, reinforced with strong program management underpinned with 
proven systems engineering and appropriate developmental testing. We 
have introduced Better Buying Power initiatives that will reinforce 
strong acquisition discipline, manage costs and program affordability, 
and strengthen the acquisition workforce. I believe it is vital that 
the acquisition and engineering professional leadership in the 
Department exercise early active involvement in our acquisition 
programs, and regularly ensure sound program management, engineering, 
and testing for every program. A program based on sound acquisition and 
engineering principles will have the best chance to succeed and execute 
within its planned cost and schedule.

                           f-35 cost overruns
    36. Senator Lee. Mr. Estevez, delays and cost overruns with the F-
35 have caused some of our partner nations, most recently Canada and 
Australia, to reassess their acquisition of the jets. What effects will 
a reduction of purchases outside of the United States have on the 
program and the cost of the jet?
    Mr. Estevez. The F-35 delivers joint- and partner-nation air power 
essential to our mutual security strategy and is a capability needed to 
defeat 21st century threats. The F-35 program was established on the 
concept of economies of scale for purchases. Any reduction in the 
planned procurement quantity of F-35s, either from the International 
Partners or from a U.S. Service, will result in an increase in the unit 
cost of each remaining F-35 to be procured. The amount of the cost 
increase will be a factor of how many jets are reduced from the 
currently planned procurement quantities, and in which years.

    37. Senator Lee. Mr. Estevez, how are DOD and the Air Force working 
with our partner nations to address their concerns and maintain their 
participation in the program?
    Mr. Estevez. The F-35 Program Executive Officer (PEO) and his staff 
actively engage the F-35 Partner nations on a daily basis. Members of 
the Partner nations are fully integrated into the F-35 Program Office. 
The PEO ensures open lines of communication to all of the Partners, so 
that all countries have the latest programmatic, technical, and 
financial updates to support their sovereign decisions on participation 
and purchases. Additionally, the Lead Service Acquisition Executive and 
the PEO host a number of forums throughout the year, such as the JSF 
Executive Steering Board, where all of the Partner nations can voice 
their concerns and have a discussion with senior program leaders. The 
Defense Acquisition Executive informs all of the Partner National 
Armament Directors on major U.S. budget developments affecting 
development and procurement accounts, in addition to hosting them 
annually (along with the CEOs of the larger F-35 defense contractors) 
to review strategic level program progress and concerns. The F-35 
program has demonstrated continued progress in a number of areas. Of 
paramount interest to the partner nations is affordability and they are 
encouraged with the continued cost reduction improvements realized in 
the unit cost of the aircraft. However, sequestration effects may 
negatively impact this improvement in affordability over the long-term.
                                 ______
                                 
    [The nomination reference of Hon. Alan F. Estevez follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 22, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Alan F. Estevez, of the District of Columbia, to be a Principal 
Deputy Under Secretary of Defense, vice Frank Kendall III.
                                 ______
                                 
    [The biographical sketch of Hon. Alan F. Estevez, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Alan Fredric Estevez
Education:
    North Arlington High School, NJ

        <bullet> 1971-1975
        <bullet> High School Diploma awarded 1975

    Rutgers University

        <bullet> 1975-1979
        <bullet> Bachelor of Arts Degree awarded 1979

    Industrial College of the Armed Forces/National Defense University

        <bullet> 1994-1995
        <bullet> Masters of Science Degree awarded 1995
Employment record:
    Department of Defense

        <bullet> Assistant Secretary of Defense (Logistics & Materiel 
        Readiness)

                <bullet> August 2011-Present

        <bullet> Principal Deputy Assistant Secretary of Defense 
        (Logistics & Materiel Readiness)

                <bullet> November 2006-August 2011
                <bullet> Performing the Duties of the Assistant 
                Secretary of Defense (Logistics & Materiel Readiness), 
                April 2009-August 2011

        <bullet> Assistant Deputy Under Secretary of Defense (Supply 
        Chain Integration)

                <bullet> October 2002-November 2006

        <bullet> Deputy, Office of the Assistant Deputy Under Secretary 
        of Defense (Transportation Policy)

                <bullet> May 2000-October 2002
                <bullet> Acting Assistant Deputy Under Secretary of 
                Defense (Transportation Policy), September 2001-
                December 2001

        <bullet> Assistant for Traffic Management, Office of the 
        Assistant Deputy Under Secretary of Defense (Transportation 
        Policy)

                <bullet> December 1995-May 2000
Honors and awards:
    Department of Defense Distinguished Public Service Award (2013)
    Department of Defense Distinguished Civilian Service Award (2011)
    Presidential Rank Distinguished Executive Award (2011)
    Presidential Rank Meritorious Executive Award (2006)
    Office of the Secretary of Defense Medal for Meritorious Civilian 
Service (2005 & 2009)
    Service to America Medal, National Security Category (2005)
    Office of the Secretary of Defense Medal for Exceptional Civilian 
Service (2001)
    Office of the Secretary of Defense Award for Excellence (1997)
    Defense Logistics Agency Superior Civilian Service Award (1997)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Alan F. 
Estevez in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Alan Fredric Estevez.

    2. Position to which nominated:
    Principal Deputy Under Secretary of Defense (Acquisition, 
Technology, and Logistics).

    3. Date of nomination:
    January 22, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 20, 1957; Kearny, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Susan Hideko Pearson (Ludrick).

    7. Names and ages of children:
    N/A.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Industrial College of the Armed Forces/National Defense University, 
Masters of Science in National Resource Strategy 1994-1995
    Rutgers University, Bachelor of Arts in Political Science 1975-1979
    North Arlington High School, NJ, High School Diploma 1971-1975

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Assistant Secretary of Defense (Logistics & Materiel Readiness), 
Department of Defense, Pentagon, Washington, DC, Aug. 2011-Present
    Principal Deputy Assistant Secretary of Defense (Logistics & 
Materiel Readiness), Department of Defense, Pentagon, Washington, DC, 
Nov. 2006-Aug. 2011

        <bullet> Performing the Duties of the Assistant Secretary of 
        Defense (Logistics & Materiel Readiness) April 2009-August 2011

    Assistant Deputy Under Secretary of Defense (Supply Chain 
Integration), Department of Defense, Pentagon, Washington, DC, Oct. 
2002-Nov. 2006
    Deputy, Office of the Assistant Deputy Under Secretary of Defense 
(Transportation Policy), Department of Defense, Pentagon, Washington, 
DC, May 2000-Oct. 2002

        <bullet> Acting Assistant Deputy Under Secretary of Defense 
        (Transportation Policy), Department of Defense, Pentagon, 
        Washington, DC, Sept. 2001-Dec. 2001

    Assistant for Traffic Management, Office of the Assistant Deputy 
Under Secretary of Defense (Transportation Policy), Department of 
Defense, Pentagon, Washington, DC, Dec. 1995-May 2000

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    DOD Liaison to Board of Governors, Electronic Product Code Global 
(EPCGlobal), Global Standard 1 (GS1) (standard setting group) 2004-
2011.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, National Defense Industrial Association
    Member, Museum of Modern Art, NY
    Member, Defenders of Wildlife
    Member, Friends of the National Zoo
    Member, Corcoran Gallery
    Member, WETA
    Member, The Potomac Conservancy
    Member, Habitat For Humanity
    Member, National Parks Conservation Association
    Member, The Nature Conservancy
    Member, Rails to Trails
    Member, Chesapeake Bay Foundation
    Member, WAMU 88.5
    Member, Philips Collection
    Member, Potomac Appalachian Trail Club
    Member, C&O Canal Trust

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Department of Defense Distinguished Public Service Award, 2013
    Department of Defense Distinguished Civilian Service Award, 2011
    Presidential Rank Distinguished Executive Award, 2011
    Presidential Rank Meritorious Executive Award, 2006
    Office of the Secretary of Defense Medal for Meritorious Civilian 
Service, 2005 & 2009
    Service to America Medal, National Security Category, 2005
    Office of the Secretary of Defense Medal for Exceptional Civilian 
Service, 2001
    Office of the Secretary of Defense Award for Excellence, 1997
    Defense Logistics Agency Superior Civilian Service Award, 1997

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Estevez, A.F. and S. Geary (2006), ``RFID: The Future is Now,'' 
Exceptional Release Magazine, Summer 2006, pp 26-29.
    Estevez, Alan F., (2005), ``RFID Vision in the DOD Supply Chain,'' 
Army Logistician, May-June 2005, pp 5-9.
    Estevez, A.F. and S. Geary (2004), ``Lessons from the Desert,'' 
Supply Chain Management Review, November/December 2004, pp. 38-43.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I speak in my official capacity at various events about once a 
month on topics general DOD logistics topics. However, these are not 
formal speeches.

    17.Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Alan F. Estevez.
    This 25th day of February, 2013.

    [The nomination of Hon. Alan F. Estevez was reported to the 
Senate by Chairman Levin on March 20, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 30, 2013.]
                              ----------                              

    [Prepared questions submitted to Mr. Frederick E. Vollrath 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. Currently, I am not aware of a need for modifications to 
the act but if confirmed I will review its implementation and will 
recommend modifications if necessary.
                                 duties
    Question. Section 138 of title 10, U.S.C., provides that Assistant 
Secretaries of Defense shall perform such duties and exercise such 
powers as the Secretary of Defense my prescribe.
    This is a new position. Assuming you are confirmed, what duties do 
you expect to be assigned to you?
    Answer. Upon my appointment as Principal Deputy Assistant Secretary 
of Defense for Readiness and Force Management (PDASD(R&FM)) in March 
2012, it has been my task to establish the Office of Readiness and 
Force Management and I have been performing the duties of the Assistant 
Secretary of Defense for Readiness and Force Management. In this 
position, I have been serving as the principal advisor to the Secretary 
of Defense and the Under Secretary of Defense for Personnel and 
Readiness (USD(P&R)) on all matters relating to the areas of civilian 
and military personnel policies, readiness of the force, military 
community and family policy, Total Force planning and requirements, 
diversity management, equal opportunity, and transition policy.
    Question. What background and experience do you have that you 
believe qualifies you to perform the duties of this position?
    Answer. I have over 40 years of human resource management and 
executive leadership experience, including organizational development 
with an emphasis on strategic level efficiencies. I retired in the rank 
of lieutenant general after serving 35 years in the U.S. Army human 
resource management command and staff positions. I last served as the 
U.S. Army's Deputy Chief of Staff for Personnel (G-1), where I directed 
all aspects of human resources management and administration for the 
total Army. I have also served as the corporate Vice President of Human 
Resources (HR) for a large global Fortune 150 Company. I have the 
unique experience of both government and nongovernment HR experience.
    Question. Do you believe that there are any additional steps that 
you need to take to enhance your expertise to perform these duties?
    Answer. Upon starting in the position of PDASD(R&FM), I immediately 
conducted face-to-face meetings with my staff (collaborative and a open 
dialogue). I routinely meet with the deputy assistant secretaries, 
directors, and the Acting Under Secretary of Defense for Personnel and 
Readiness to stay informed of current issues and to adjust strategies 
as needed. I will continue to reach out to the Departments of Veterans 
Affairs and Labor and the Office of Personnel Management to better our 
efforts to collaborate in solutions to DOD HR issues.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the Assistant Secretary of Defense for Readiness and Force Management 
(ASD(R&FM))?
    Answer. In my view, major challenges currently confronting the 
ASD(R&FM) include the reduced ability to accomplish all of our missions 
should sequestration and resulting furloughs of the civilian workforce 
come to pass; finding meaningful ways to combat the Department's rising 
level of suicides; sustaining the All-Volunteer Force during these 
fiscally challenging times, as well as ensuring that we have the right 
Force mix as we drawdown Service end strength while applying greater 
manpower to emerging areas of growth such as cyber; expanding the 
Transition Assistance Program (TAP) and implementing the new Civilian 
Personnel Performance Management System; ensuring the policy provisions 
are complete to adopt the changes from the extension of Same-Sex 
Partner Benefits; and ensuring the Military Compensation and Retirement 
Modernization Commission has the appropriate DOD recommendations prior 
to the required deadline.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will work closely with the subject matter 
experts and leadership in these areas to develop proactive responses 
and approaches to ensure that all courses of action are timely and 
appropriate.
                             relationships
    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    The Secretary of Defense.
    Answer. If confirmed, I would report through the USD(P&R) to the 
Secretary of Defense as this position reports directly to the USD(P&R).
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would report through the USD(P&R) to the 
Deputy Secretary of Defense as this position reports directly to the 
USD(P&R).
    Question. The Under Secretary of Defense for Personnel and 
Readiness
    Answer. The ASD(R&FM) reports directly to the USD(P&R) and serves 
as the primary advisor on all matters relating to the areas of civilian 
and military personnel policies, readiness of the force, military 
community and family policy, Total Force planning and requirements, 
diversity management, equal opportunity, and transition policy. The 
ASD(R&FM) also provides regular updates to USD regarding matters in ASD 
portfolio.
    Question. The Assistant Secretary of Defense for Health Affairs.
    Answer. Collaborates with ASD for Health Affairs on matters of 
mutual interest or are cross-cutting in nature.
    Question. The Assistant Secretary of Defense for Reserve Affairs.
    Answer. Collaborate with the ASD for Reserve Affairs on matters of 
mutual interest or are cross-cutting in nature.
    Question. The Assistant Secretary of Defense for Logistics and 
Materiel Readiness (ASD(L&MR)).
    Answer. The ASD(R&FM) collaborates with ASD(L&MR) on matters of 
mutual interest or are cross-cutting in nature.
    Question. The Department of Defense General Counsel.
    Answer. Seek advice on all legal matters or services performed 
within the office of the Assistant Secretary of Defense for Readiness 
and Force Management.
    Question. The Department of Defense Inspector General.
    Answer. Forward or respond to any instances of waste, fraud and 
abuse within the office of the ASD(R&FM) and cooperate with the 
Inspector General on any investigative activities.
    Question. The Service Secretaries.
    Answer. Collaborate with Service Secretaries on matters of mutual 
interest or are cross-cutting in nature. Seek Service input on major 
policy initiatives.
    Question. The Assistant Secretaries for Manpower and Reserve 
Affairs of the Army, Navy, and Air Force.
    Answer. Meet regularly with M&RAs to discuss key personnel issues. 
Collaborate on matters of mutual interest or are cross-cutting in 
nature and seek input on major policy initiatives.
    Question. The Deputy Chiefs of Staff of the Army and Air Force for 
Personnel, the Chief of Naval Personnel, and the Deputy Commandant of 
the Marine Corps for Manpower and Reserve Affairs
    Answer. Meet with Service Chiefs on key personnel issues. 
Collaborate on matters of mutual interest or are cross-cutting in 
nature.
    Question. The combatant commanders
    Answer. Formal communications to the commanders of the combatant 
commands normally is transmitted through the Chairman of the Joint 
Chiefs of Staff.
    Question. The Joint Staff, particularly the Director for Manpower 
and Personnel (J-1)
    Answer. Meet with J-1 on key personnel issues and collaborate on 
matters of mutual interest or are cross-cutting in nature.
                        disability severance pay
    Question. Section 1646 of the Wounded Warrior Act, included in the 
National Defense Authorization Act for Fiscal Year 2008, enhanced 
severance pay and removed a requirement that severance pay be deducted 
from VA disability compensation for servicemembers discharged for 
disabilities rated less than 30 percent incurred in the line-of-duty in 
a combat zone or incurred during the performance of duty in combat-
related operation as designated by the Secretary of Defense. In 
adopting this provision, Congress relied on the existing definition of 
a combat-related disability contained in title 10 U.S.C. 1413a(e)). 
Rather than using the definition intended by Congress, the Department 
of Defense adopted a more limited definition of combat-related 
operations, requiring that the disability be incurred during 
participation in armed conflict.
    What is your understanding of the number of servicemembers impacted 
by the DOD interpretation of ``combat-related disability,'' and how did 
the DOD interpretation affect their compensation?
    If confirmed, will you reconsider the Department's definition of 
combat-related operations for purposes of awarding enhanced severance 
pay and deduction of severance pay from VA disability compensation?
    Answer. Since Enhanced Disability Severance Pay is outside the 
portfolio of OASD(R&FM), I do not have specific details on this 
program. I will ensure that the proper authorities, namely the 
Assistant Secretary of Defense for Health Affairs, understand the 
concern expressed here and encourage a review of policy to ensure 
equitable and fair treatment of our disabled servicemembers.
                       homosexual conduct policy
    Question. The law commonly referred to as ``Don't Ask, Don't Tell'' 
was repealed effective September 20, 2011. As part of the 
implementation of this repeal, the Secretary of Defense appointed a 
benefits review group to conduct a review of all potential benefits 
that could be made available to same-sex spouses. The report of this 
review group is long overdue and has been repeatedly delayed.
    What is your view of the repeal of ``Don't Ask, Don't Tell'' 
(DADT)?
    Answer. On July 22, 2011, the President, Secretary of Defense and 
Chairman of the Joint Chiefs of Staff certified that repeal was 
consistent with the standards of military readiness, military 
effectiveness, unit cohesion, and recruiting and retention of the Armed 
Forces. Repeal occurred September 20, 2011. I fully support the repeal 
of DADT.
    Question. What is your assessment of the implementation of the 
repeal of this law?
    Answer. Since September 20, 2011, the effective date of repeal, the 
Service Secretaries, the Service Chiefs and the combatant commanders 
have reported no significant issues related to implementation of the 
repeal of DADT. I believe this success can be attributed to the 
Department's comprehensive pre-repeal training programs, combined with 
the discipline of our servicemembers and continued close monitoring and 
enforcement of standards by our military leaders at all levels
    Question. What is the status of the report of the benefits review 
group? When is this group expected to issue its report?
    Answer. Following repeal, the Department focused its attention to 
benefits. The Department conducted a deliberative and comprehensive 
review of the possibility of extending eligibility for benefits, when 
legally permitted, to same-sex domestic partners of servicemembers. The 
benefits were examined from a policy, fiscal, legal and feasibility 
perspective. That review has been finalized and the Secretary of 
Defense approved the extension of an additional two member-designated 
benefits and 22 additional benefits that are to be made available by 
August, 31, 2013 but no later than October 1, 2013.
    Question. What is your view on the issue of providing military and 
survivor benefits to same-sex partners?
    Answer. When DADT was repealed, there remained some areas where our 
members and their families were not treated equally. In some of these 
areas, the Department can take administrative action that better cares 
for members and their families, consistent with the law. When 
servicemembers don't have to worry about their families back home, they 
can better focus on the mission.
    Question. If confirmed, will you ensure that completion of the 
report of the Benefits Review Group is expedited and provided to 
Congress?
    Answer. The Joint Benefits Review Working Group was chartered to 
provide recommendations to the Secretary of Defense on benefits that 
could be extended from a policy, fiscal, legal and feasibility 
perspective. The Secretary of Defense made his decision concerning the 
recommendation and released a memo on February 11, 2013 detailing which 
benefits would be extended.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of the Department of Defense regarding religious practices in 
the military?
    Answer. Current policies and programs of the Department of Defense 
regarding religious practices in the military ensure servicemembers' 
rights to observe the tenets of their respective religions, as well as 
to hold no specific religious conviction or affiliation. The 
Chaplaincies of the Military Departments advise and assist commanders 
in the discharge of their responsibilities to provide for the free 
exercise of religion in the context of military service as guaranteed 
by the Constitution, assist commanders in managing Religious Affairs 
and serve as the principal advisors to commanders for all issues 
regarding the impact of religion on military operations.
    Question. In your view, do these policies appropriately accommodate 
religious practices that require adherents to wear items of religious 
apparel or adhere to certain grooming practices related to their faith?
    Answer. Current policies allow for consideration of accommodations 
of religious apparel that do not interfere with the performance of 
military duties. If confirmed, I will continue to work with the 
Military Services to ensure that we maintain the right balance between 
military uniform and appearance standards and servicemembers' personal 
religious practices.
    Question. In your view, do these policies appropriately accommodate 
the free exercise of religion and other beliefs without impinging on 
those who have different beliefs, including no religious belief?
    Answer. Yes, in my view, current policies appropriately accommodate 
the free exercise of religion for all servicemembers in the pluralistic 
environment that is the U.S. military. The Department of Defense does 
not endorse any one religion or religious organization, and provides 
free access of religion for all members of the military services. The 
Department respects (and supports by its policy) the rights of others 
to their own religious beliefs, including the right to hold no beliefs. 
If confirmed, I will continue to monitor and assess these policies.
    Question. What is your assessment of measures taken at the Service 
Academies to ensure religious tolerance and respect?
    Answer. My assessment is that these measures have been successful 
in fostering religious tolerance and respect. Systems are in place to 
provide the means for cadets to address and resolve any perceived 
unfair treatment on the basis of race, national origin, color, gender, 
and/or religious affiliation, or sexual harassment. Servicemembers can 
use the chain of command, Inspector General or Equal Opportunity 
channels to raise concerns.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. Existing policies provide military chaplains with 
sufficient guidance that allows them to balance, in both formal and 
informal settings, their own faith practices with the rights of others 
who may hold different or no religious beliefs. I acknowledge that this 
at times can be a difficult balance to achieve, and if confirmed, I 
will continue to work with the civilian and military leadership of the 
Department to ensure this balance is maintained.
    Question. The Independent Review Related to Fort Hood observed that 
``DOD policy regarding religious accommodation lacks the clarity 
necessary to help commanders distinguish appropriate religious 
practices from those that might indicate a potential for violence or 
self-radicalization.'' Recommendation 2.7 of the Final Recommendations 
urged the Department to update policy to clarify guidelines for 
religious accommodation and Recommendation 2.8 urged the Department to 
task the Defense Science Board to ``undertake a multi-disciplinary 
study to identify behavioral indicators of violence and self-
radicalization . . . ''.
    What is your view of this recommendation?
    Answer. Ensuring appropriate accommodations for the free exercise 
of religions and protecting servicemembers from violence and harm are 
both of vital importance. Pursuant to Recommendation 2.7, the 
Department updated its policy on religious accommodation to ensure 
religious freedoms and practices are accommodated to the fullest extent 
possible considering mission readiness, discipline and unit cohesion. 
This policy is currently under revision to incorporate language from 
The National Defense Authorization Act (NDAA) for Fiscal Year 2013, 
section 533 which protects the rights of conscience of members of the 
Armed Forces and chaplains. Regarding Recommendation 2.8, the 
Department did task the Defense Science Board (DSB) to undertake a 
study. The DSB recently completed their study and found that it could 
not determine a specific list of behaviors that would indicate risk of 
violent/extremist behavior. If I am confirmed, I will continue to 
provide oversight regarding the implementation of the recommendations 
of the Fort Hood Review.
    Question. Will you work to ensure that a scientific factbased 
approach to understanding radicalization will drive the Department's 
relevant policies on this topic?
    Answer. Yes, if confirmed I will review the Department's existing 
policies and its plans to address these challenges and determine what, 
if any, changes should be made. I agree that any changes to how the 
Department approaches this issue should be based on a solid factual 
foundation.
                      muslims in the u.s. military
    Question. In your view, did the attack at Ft. Hood encourage 
harassment or even violence against Muslims in the military?
    Answer. The incident at Fort Hood was a tragedy and an isolated 
event. We must not allow the circumstances surrounding that incident to 
compromise the military's core values regarding the free exercise of 
religion and to ensure that we treat every servicemember with dignity 
and respect. Each servicemember has the right to practice his or her 
religious faith without fear of persecution or retribution. This is a 
core value of our Country and our military.
    Question. If confirmed, what strategies would you advocate to 
address the potential for harassment or violence against Muslims in the 
U.S. military?
    Answer. This sort of behavior or any form of cruelty and 
maltreatment is inconsistent with the military's core values, detracts 
from combat capability, and has no place in the Armed Forces. Through 
ensuring clear and consistent policy, commanders and leaders at all 
levels will have the guidance necessary to maintain an environment that 
promotes dignity and respect, and will hold them accountable for 
preventing harassment or mistreatment.
                                 hazing
    Question. Numerous incidents of hazing have been reported during 
the last year, several of which involved suicide by hazing victims. 
Although several of those who committed the hazing were prosecuted, 
they were acquitted of the most serious allegations.
    Does the Department of Defense have a comprehensive policy 
addressing hazing? If so, what is the policy and where is it 
documented?
    Answer. A 1997 Secretary of Defense policy memorandum prohibiting 
hazing is unambiguous; however, the guidance clearly states it is 
contrary to good order and discipline and is unacceptable behavior. 
This guidance also defines the prohibited conduct which constitutes 
hazing as well as guidance for dealing with violations.
    Recent leadership statements have continued to emphasize that such 
behavior will not be tolerated, to include the Secretary of Defense 
message of December 2011, the Secretary of the Army's tri-signed 
message of January 2012, and the All Marine Corps Activities message 
and revised Marine Corps Order 1700.28A of February 2012.
    Question. In your view, should the Uniform Code of Military Justice 
(UCMJ) be amended to specifically prohibit hazing? Are other changes to 
the UCMJ needed to adjudicate allegations of hazing?
    Answer. It is my understanding that the Joint Service Committee on 
Military Justice has completed its review of hazing as a separate 
offense under the UCMJ and the associated report is currently under 
departmental review.
    Question. If confirmed, what actions will you take to address the 
issue of hazing?
    Answer. The DOD Hazing Review Team is actively examining responsive 
courses of action in three focus areas--policy, training and education, 
and reporting--all reinforce the Department's position that hazing is 
unacceptable behavior.
                         women in the military
    Question. Secretary Panetta, at the recommendation of the Joint 
Chiefs of Staff, recently rescinded the policy restricting the 
assignment of women to certain units which have the primary mission of 
engaging in direct ground combat operations, and has given the military 
services until January 1, 2016, to open all positions currently closed 
to women, or to request an exception to policy to keep a position 
closed beyond that date, an exception that must be approved by the 
Chairman of the Joint Chiefs of Staff and the Secretary of Defense.
    Do you support Secretary Panetta's decision?
    Answer. Yes, I support the measures Secretary Panetta has taken to 
expand the positions available to women.
    Question. What is your view of the appropriate role for women in 
the Armed Forces?
    Answer. I believe success in our military is based upon ability, 
qualifications and performance of a person consistent with our values 
and military readiness. I don't believe there is an appropriate role 
for men or for women, rather there is an appropriate position for 
anyone who can meet the requirements of that position.
    Question. Do you believe it is in the national security interest to 
rescind the policy restricting assignment of women to certain units 
which have the primary mission of engaging in direct ground combat 
operations? Why or why not?
    Answer. Yes, it is in the best interest of this nation to permit 
the most qualified individual, who meets the requirements of a 
position, to serve in that position regardless of gender.
    Question. If confirmed, what action will you take to ensure that 
physical standards will be realistic and will preserve military 
readiness and mission capability?
    Answer. The Department of Defense is aware of Public Law 103-160, 
section 543, which prohibits the Department from changing an 
occupational performance standard for the purpose of increasing or 
decreasing the number of women in that occupational career field. To 
ensure physical standards are being properly developed and accurately 
correlate with the requirements of the position or occupation, we have 
partnered with RAND to assess the Services' work against industry 
standards.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements? If so, what steps will you 
take, if confirmed, to ensure that such decisions are made on this 
basis?
    Answer. It is not a requirement to have women in these positions; 
rather it is in the best interest of the Department to allow both men 
and women who meet the standards for these positions to compete for 
them. This is not a program to put women into direct ground combat 
positions; it's a program to remove gender as a selection disqualifier 
and, if confirmed, I will ensure that such decisions are consistent 
with that approach.
    Question. Some family members have expressed concerns about 
assigning women to what are currently male-only combat units.
    To what extent do you believe that this will be a problem in the 
implementation of this policy?
    Answer. It's normal for family members to have concerns about their 
loved ones, however I expect our commanders to select qualified 
personnel, male or female. Additionally, we have had a number of women 
in newly opened units since mid-2012, and have already experienced 
successful integration of women into formerly male-only units.
    Question. If it is a problem, what steps would you take if 
confirmed to address it?
    Answer. We've required the Services to provide us quarterly 
feedback on their elimination of gender-restrictive policy, which 
includes feedback on the status of women in these newly opened 
positions. If problems are encountered, I will, if confirmed, examine 
the issue and address it considering all dimensions and all 
recommendations consistent with sustaining readiness.
                    personnel and entitlement costs
    Question. Personnel and related entitlement spending continues to 
grow and is becoming an ever increasing portion of the DOD budget.
    What actions do you believe can and should be taken, if any, to 
control the rise in personnel costs and entitlement spending?
    Answer. Congress, in the 2013 National Defense Authorization Act, 
established a Military Compensation and Retirement Modernization 
Commission. Currently, the Department is reviewing all aspects of 
military compensation and benefits in order to provided recommendations 
to the Commission later this fall.
    As a Department, we must continually strive to balance our 
responsibilities to our servicemembers, to the Nation, and to the 
American taxpayers. If confirmed, I am committed to exploring options 
to find savings and more efficient alternatives to help control the 
rise in personnel and entitlement costs while still fully supporting 
our men and women in uniform and the All-Volunteer Force.
    Question. In your view, can the Department and the Services 
efficiently manage the use of bonuses and special pays to place high 
quality recruits in the right jobs without paying more than the 
Department needs to pay, or can afford to pay, for other elements of 
the force?
    Answer. Bonuses and special and incentive pays are some of the most 
cost effective tools available to the Services. These tools provide 
effective and easily targetable incentives without the long-term costs 
associated with entitlements and are generally much more cost-effective 
than across-the-board pay increases. Like any compensation program, 
however, these tools must be continually monitored to ensure they are 
used both efficiently and effectively and that the Department is 
receiving best value for its dollars. If confirmed, I will continue to 
work to ensure our bonus and special and incentive pay programs are 
administered effectively and efficiently.
             dependent care and flexible spending accounts
    Question. The 10th QRMC recommended providing dependent care and 
flexible spending benefits to Active Duty servicemembers. Providing 
these benefits would seem consistent with the initiatives of First Lady 
Michelle Obama and Dr. Jill Biden on behalf of military families. It 
would appear that no new legislative authority is needed for the 
Department to provide these benefits to servicemembers and their 
families.
    If confirmed, would you extend these benefits to the Active Duty 
servicemembers and their families?
    Answer. In response to the 2006 National Defense Authorization Act, 
the Department examined and provided a report on the possibility of 
providing a flexible spending account to military members. The report 
identified a number of advantages and disadvantages to the Department 
offering an Flexible Spending Account (FSA) for military members. The 
central issue was a debate of whether the tax advantage to military 
members would warrant the cost the Department would incur implementing 
and managing such a program. Generally, military members pay very 
little out of pocket for their health care and are in a low tax 
bracket. Therefore, the majority of active duty military members would 
see little, if any, benefit to implementation of an FSA. Finally, most 
reservists, who typically receive medical care outside the military 
system, already have access to an FSA.
                           suicide prevention
    Question. The numbers of suicides in each of the Services continues 
to concern the Committee. The Army released a report in July 2010 that 
analyzed the causes of its growing suicide rate and examined disturbing 
trends in drug use, disciplinary offenses, and high risk behaviors. In 
addition, studies conducted by the Army of soldiers and marines in 
theater showed declines in individual morale and increases in mental 
health strain, especially among those who have experienced multiple 
deployments.
    In your view, what role should the Department of Defense play in 
shaping policies to help prevent suicides both in garrison and in 
theater and to increase the resiliency of all servicemembers and their 
families, including members of the Reserve components?
    Answer. Suicide is a complex problem and each individual 
circumstance is unique. However, I strongly believe that suicide 
prevention is a leadership responsibility, and the Department 
encourages everyone to responsibly seek professional behavioral health 
and other services.
    To address the factors that contribute to suicidal behavior, I 
believe the Department must support a culture that promotes total force 
fitness and resilience. This requires both military and civilian 
leaders to be knowledgeable on how to enhance protective factors and a 
positive working environment. It means involving families in solutions 
and care planning. Peers and non-medical case managers also need to 
foster resilience and build a supportive community.
    If confirmed, I will partner with the Services to ensure suicide 
prevention and resiliency building are emphasized at all levels along 
with the promotion of help-seeking behaviors and improving access to 
behavioral health care. I will focus on finding best practices and 
using them to provide guidance from which the Services can most 
effectively operate their suicide prevention programs across the total 
force.
                       readiness responsibilities
    Question. Section 136 of title 10, U.S.C., gives the Under 
Secretary of Defense for Personnel and Readiness certain 
responsibilities for military readiness. Some important issues that 
affect military readiness, however, such as logistics and materiel 
readiness, have been placed under the jurisdiction of the Under 
Secretary for Acquisition, Technology, and Logistics.
    What is your understanding of the responsibilities of the Under 
Secretary of Defense for Personnel and Readiness in exercising policy 
and program oversight of military readiness, including materiel 
readiness?
    Answer. The responsibilities of the USD(P&R) are to develop 
policies, plans, and programs for the total force and its allocation 
among the DOD components, and between the Active and Reserve 
components, to ensure efficient and effective support of wartime and 
peacetime operations, contingency planning, and preparedness. As part 
of these responsibilities, the USD(P&R) coordinates closely with the 
USD(AT&L) by reviewing and evaluating the requirements of the Defense 
Acquisition Board's major defense acquisition programs and proposed 
weapons systems for personnel, training, and readiness implications.
    Question. If confirmed, what would you propose as the most critical 
objectives to improve policy and program oversight over military 
readiness?
    Answer. One of the most critical objectives facing the Department 
is to oversee the Service's transition, as rapidly as possible, from a 
counterinsurgency focused force to a Joint force capable of operating 
effectively across the full range of military operations. This is 
driven by the recognition that despite today's fiscal challenges, our 
forces will be expected to provide enhanced presence, deterrence, and 
must also be prepared to respond rapidly to emerging crises in a 
diverse and complicated global environment. Specifically, we must 
create a Joint force capable of maintaining our commitment to 
rebalancing our global posture and presence to the Asia-Pacific region. 
These requirements call for a leaner force that is more agile, ready, 
and technologically advanced. Achieving this force will take time and 
other resources to fully achieve.
    This transition is not about returning to pre-September 11 force 
profile and readiness standards. The global dynamic, pace of activity, 
and our military's global responsibilities have changed since then. We 
must again be ready for a wide range of possible missions across the 
spectrum of conflict.
    Question. If confirmed, how would you work with the Military 
Departments as well as other Office of the Secretary of Defense offices 
to achieve them?
    Answer. Military readiness, by its very nature, has some relevance 
for nearly every one of the DOD components. For this reason, my office 
must work closely with other OSD offices, the Services, the Joint 
Staff, the combatant commands, and the Combat Support Agencies (CSAs) 
to ensure we are all moving toward the same goals.
    One of the primary mechanisms for ensuring coordination and 
synchronization with the DOD components on readiness issues is our 
participation in the Deputies Management Activities Group (DMAG). The 
Readiness DMAG series focuses on the Department-level readiness issues 
that impact current and future military readiness. In support of these 
DMAGs, the Deputy Assistant Secretary of Defense for Readiness has 
created a readiness forum that is co-lead by the Joint Staff J-3 and 
comprised of Service readiness leads, SOCOM, nearly every OSD 
component, and several representatives from across the Joint Staff. 
This forum meets regularly and serves as an important venue to raise 
critical readiness concerns as well as share management best practices.
    Question. What is your understanding and assessment of the 
Department's systems for readiness reporting and monitoring of military 
forces?
    Answer. With the deployment of the Defense Readiness Reporting 
System (DRRS) and the pending integration of the traditional Status of 
Resources and Training System (SORTS), the Department's systems are 
fully capable of capturing accurate and timely readiness reporting 
indicators. The traditional SORTS metrics provide critical information 
to the Services that assist in force management and train, organize, 
and equip decisions. The DRRS provides capability assessments for what 
the Service's provide that enable better COCOM assessments on their 
ability to execute the Defense Strategy.
    Question. In your view, does the current readiness reporting system 
accurately and reliably collect and display the information necessary 
to establish that our forces are not only ``ready'' but ``ready for 
what''?
    Answer. DRRS, has the capability for all organizations, Service, 
Joint, and the CSAs, to assess their readiness for any and all 
missions. The use of Mission Essential Tasks in these assessments 
provides the fidelity and flexibility for organizations and tactical 
units to express what capabilities they can provide and what missions 
they are ready to execute.
                     readiness of the armed forces
    Question. The Joint Chiefs recently stated that ``the readiness of 
our Armed Forces is at a tipping point. We are on the brink of creating 
a hollow force due to an unprecedented convergence of budget conditions 
and legislation that could require the Department to retain more forces 
than requested while underfunding that force's readiness.''
    How do you currently assess the readiness of the Armed Forces?
    Answer. In my assessment, our military forces are exceptionally 
prepared for the missions they have undertaken for the last 11 years. 
The investments the Nation has made in training technologies, force 
protection, command and control, and intelligence, surveillance and 
reconnaissance systems have helped maintain our military's standing as 
the most formidable force in the world. Today our forces are postured 
globally, conducting counterterrorism, stability, and deterrence 
operations, maintaining a stabilizing presence, conducting bilateral 
and multilateral training to enhance our security relationships, and 
providing the crisis response capabilities required to protect U.S. 
interests. In the event of an unexpected crisis, large-scale conflict, 
or a threat to the Homeland, ready forces are available to provide the 
surge capacity to meet wide-ranging operational challenges today.
    Question. Do you agree with the Joint Chiefs that readiness is at a 
tipping point?
    Answer. Maintaining ready forces is a priority and I share that 
concern with the Joint Chiefs. The current fiscal environment makes 
maintaining readiness very difficult. Managing readiness after a decade 
of war was bound to be challenging irrespective of fiscal 
considerations because the Services are beginning the difficult process 
of resetting and restoring our force's ability to conduct the full 
range of military operations as required by the current defense 
strategy.
    I believe there is a very real possibility that the readiness 
effects of sequestration or indefinite operation under a Continuing 
Resolution could be devastating. These effects are likely to reduce 
readiness both directly, through reductions in operations and training, 
and indirectly through effects on personnel and equipment. Some of 
those indirect effects, especially those that effect personnel or 
spares pipelines, could take years to realize and even longer to 
mitigate.
    Question. If confirmed, how would you assess the impact of budget 
conditions on the issue expressed by the Joint Chiefs of a hollow 
force?
    Answer. I think that we can all agree that sequestration is not an 
effective method to both reduce the Department's budget and minimize 
the impact to the readiness of the force. I agree with Secretary 
Panetta's description of the current circumstances as a ``perfect 
storm''. Adding the devastating effects of sequestration on top of 
continuing to operate under a Continuing Resolution will likely cause 
circumstances that are guaranteed to reduce readiness both directly, 
through reductions in operations and training, and indirectly through 
circuitous effects on personnel and equipment.
    Question. How would you define a hollow force?
    Answer. A hollow force is a force that has been rendered incapable 
of performing the mission that we expect it to conduct. While the units 
may exist, they would not have the personnel, equipment, and/or 
training necessary to make them capable of executing the defense 
strategy or responding to the most likely contingencies.
    Question. As the United States draws down the number of forces 
deployed to Afghanistan, Commanders have voiced concerns about 
leadership challenges for forces in garrison after 12 years of 
sustained combat operations.
    If confirmed, what could be done at your level to assist commanders 
with force management and readiness?
    Answer. I think many of the programs the Office of the Assistant 
Secretary of Defense for Readiness and Force Management provides 
oversight on are essential to commanders both in garrison and while 
deployed. These programs such as suicide prevention, safety, drug 
demand reduction, and a multitude of family programs will continue to 
be essential to commanders to help maintain the health of the force. 
Additionally, our role to provide oversight of the readiness of the 
Services to provide manned, trained and equipped forces puts us in a 
good position to engage with commanders at all levels as they adapt 
what being ready means as we transition from a counterinsurgency 
operation focused environment to a more full spectrum capable force. In 
the past year, our R&FM team has established a rich dialogue with the 
Services over these challenges.
    Question. What will be your roles and responsibilities in 
monitoring Service goals for reset and reconstitution of combat forces 
and equipment?
    Answer. If confirmed, I will work closely with the Services and 
Joint Staff to monitor the Service's progress in meeting their goals 
for reset, reconstitution and a return to the full range of military 
operations as required by the current defense strategy with clear 
emphasis on proper training.
                          readiness monitoring
    Question. Section 117 of title 10, U.S.C., directed the DOD to 
``establish a comprehensive readiness reporting system for the 
Department of Defense'' which led to the creation of the Defense 
Readiness Reporting System (DRRS).
    What is your understanding of the responsibility you will have, if 
confirmed, for the implementation and operation of DRRS?
    Answer. If confirmed, I will have direct oversight of the DRRS 
Implementation Office and ensure the program reaches its Full 
Operational Capability (FOC) as efficiently and effectively as 
possible. Additionally, moving forward from FOC, through the DRRS 
Executive Committee, in conjunction with the Joint Staff, I will ensure 
the Department's future reporting needs continue to be addressed.
    Question. What is your understanding of the relationship between 
the Assistant Secretary of Defense for Personnel and Readiness and the 
Assistant Secretary of Defense for Logistics and Material Readiness 
with regard to the implementation and operation of DRRS?
    Answer. Materiel readiness is a key component of the Department's 
ability to accomplish its assigned missions. Under the auspices of 
ASD(R&FM), DRRS provides ASD(L&MR) the forum to understand materiel 
readiness effect on the Department's current operations and contingency 
plans.
    Question. What is your understanding and assessment of the current 
implementation and operating capabilities of the DRRS?
    Answer. DRRS is in use across the Department today providing up-to-
date readiness information. Presently, an updated version of the 
system, which fully incorporates the Department's net-centric 
architecture to consume and serve up data, is undergoing formal third-
party testing to validate its accuracy, suitability, and effectiveness. 
All testing results to date have been positive and the newly tested 
version of DRRS should be ready for release later this summer.
    Question. How satisfied are you of the current ability of the DRRS 
to inform and contribute to the development of the National Security 
Strategy?
    Answer. DRRS is a critical Global Force Management capability that 
supports the National Military Strategy (NMS) which contributes to the 
National Security Strategy. Specifically, DRRS provides near real-time 
capability-based readiness of the combatant commands, Services, and 
Joint Organizations. DRRS also provides the ability to view mission 
capability and readiness metrics for all DOD organizations which drives 
plans and actions to ensure mission accomplishment. Finally, DRRS uses 
Joint and Service provided authoritative data sources in a web-based 
architecture providing greater fidelity for refined analysis and force 
management. DRRS provides the holistic picture of the DOD from the 
highest levels to the tactical to inform the NMS.
    Question. How satisfied are you of the current ability of the DRRS 
to inform and help shape the development of the defense planning 
guidance provided by the Secretary of Defense pursuant to section 
113(g) of title 10?
    Answer. DRRS permits the Secretary to effectively comply with items 
section 113(g) of title 10, as the means by which the Secretary is able 
to evaluate the Department's readiness to execute its missions and 
contingency plans. Additionally, the nature of DRRS and its 
incorporation of the Civil Support Task List allows the Department to 
evaluate plans for providing support to civil authorities.
    Question. How satisfied are you of the current ability of the DRRS 
to inform and assist the Chairman of the Joint Chiefs of Staff in 
prescribing the National Military Strategy?
    Answer. DRRS provides the Chairman of the Joint Chiefs with 
relevant readiness data to help determine whether combatant commanders 
can perform their assigned missions and associated Mission Essential 
Tasks (METs) in a joint, interagency, and multinational operational 
environment. Involved in this determination are Service assessments of 
their ability to conduct missions as part of a Joint organization. 
These assessments are analyzed quarterly in the Joint Forces Readiness 
Review providing the Chairman a comprehensive view of readiness across 
the force.
    Question. Do you have any concerns about whether the Quarterly 
Readiness Report to Congress (QRRC) is providing the best mix of 
information to clearly inform Congress of the readiness of the Joint 
Force, including near-term risks and areas where congressional action 
may be needed?
    Answer. The QRRC provides a large amount of information and data as 
they relate to the overall readiness of our Armed Forces. However, we 
feel this report can be improved, particularly in view of an austere 
budget climate and the impact that might have on the readiness of our 
Total Force. We would like to work with the congressional staffs in 
these matters and, if confirmed, I stand ready to brief and discuss the 
QRRC at any time.
    Question. Are you aware of any readiness information in use within 
DOD that is not currently shared with Congress that would be useful for 
the exercise of congressional oversight?
    Answer. No, I am not aware of any current readiness information 
that is not shared with Congress.
                      foreign language proficiency
    Question. In previous reporting, the GAO has identified challenges 
that DOD and the Services face in identifying pre-deployment training 
requirements for language proficiency and limitations with some of the 
Services information management systems to record language proficiency 
information.
    What are the current predeployment language training requirements 
for individuals or units deploying to Afghanistan and other geographic 
combatant commands areas of responsibility and what steps has DOD taken 
to ensure that forces have the required levels of language proficiency?
    Answer. In 2012, the Commander, U.S. Forces Afghanistan, specified 
the predeployment language and culture training required for all U.S. 
personnel deploying to Afghanistan. This policy acknowledged that 
various missions would place differing demands on U.S. personnel based 
on the anticipated degree of interaction with the Afghan population. 
The Department supports this policy with on-line training modules for 
basic cultural and communications skills for personnel expecting 
minimal contact with the local population. For the personnel expected 
to interact with Afghan personnel for the majority of their missions, 
DOD offers Language Training Detachments and command-sponsored 
classroom programs to supplement its HEADSTART 2 language and culture 
training modules offered by the Defense Language Institute Foreign 
Language Center (DLIFLC). Mobile Training Teams from DLIFLC are 
available to commanders on request. This approach allows commanders to 
tailor their training and maximize training resources.
    Question. The Army and Marine Corps have provided substantial 
language training to select general purpose soldiers and marines 
deploying to Afghanistan, yet the Services' training and personnel 
systems have not fully captured information on language training that 
has been completed and any proficiency gained from the training.
    What steps have DOD and the Services taken to provide 
decisionmakers with greater visibility within training and personnel 
systems on the language proficiency of general purpose forces that 
could better inform force management processes?
    Answer. The Army and Marine Corps are modifying their training data 
bases to track language and culture training provided to individuals. 
Additionally, the Department is successfully tracking the language 
proficiency of the force using the Language Readiness Index (LRI) in 
the Defense Readiness Reporting System. This tool allows decisionmakers 
and planners to quickly identify DOD military and civilian personnel 
with tested and self-professed language proficiency, the languages they 
command, and their proficiency in those languages. This information is 
provided by the Services' personnel systems and the Defense Civilian 
Personnel Data System and portrays DOD language capability inventory.
    Question. At a congressional hearing last year, Under Secretary of 
Defense for Intelligence Michael Vickers testified that the United 
States could benefit by having more DOD personnel proficient in foreign 
languages and that, ``it's an area, frankly, we still need to 
improve''.
    What is your assessment of the current level of foreign language 
proficiency across the Services?
    Answer. Our foreign language capability is growing. Our investments 
have resulted in over 265,000 DOD personnel with foreign language 
skills an increase of 6,497 from previous years. Our challenge is to 
generate the language skills to meet the needs of general purpose and 
Special Operations Forces while at the same time training to the 
professional language level for strategic capabilities like Foreign 
Area Officers and Cryptologic Language Analysts. This is our strategy 
to provide the Department with the assets it needs for regional 
deployments at the operational and tactical levels. This is especially 
important as we regionally align combat forces towards specific 
regions.
    Question. What incentives would you offer, if any, in the form of 
either financial stipends or professional advancement opportunities?
    Answer. The Department has significantly improved the availability 
of Foreign Language Proficiency Bonuses for our total force over the 
past 5 years. The bonus was extended to the Reserve component and 
payment rates increased. We are assessing its impact and are 
considering non-monetary incentives to encourage personnel to pursue 
competency in a foreign language. This involves a close look at 
linguist career paths, proper utilization, and promotion opportunities
    Question. Are you concerned with the current level of reliance upon 
contractors to provide translators to deployed combat units?
    Answer. Interpreters and translators provide the Department the 
ability to provide a high level of foreign language capability, on 
short notice, to deploying units. The use of contractors to provide 
interpretation to deployed combat units is closely monitored on a 
regular basis.
    It is not possible within current resources to train sufficient 
numbers of military or DOD personnel to meet the ever increasing need 
for personnel with high levels of foreign language and cultural skills. 
Therefore contract interpreters have and will continue to provide a 
much needed surge capability to our deploying forces. However, the 
Department recognizes the value of having foreign language skills 
organic to a unit and has in the past employed the skills of personnel 
in the Army 09L Translator Aide program as well as Military Accessions 
Vital to National Interest (MAVNI) program to provide high levels of 
language skills to deploying units. The Department is currently 
exploring other avenues to provide short-term surge capability for 
translation. One of the more exciting initiatives is the National 
Language Service Corps, which offers more than 4,000 American Citizens 
with advanced language skills who are willing to serve as temporary 
Federal employees to meet urgent and surge demands in limited 
capacities.
                       safety and risk mitigation
    Question. Since the onset of combat operations over a decade ago, 
the overall readiness of the force has steadily declined in terms of 
personnel, training, and equipment readiness. As force readiness is 
consumed as soon as it is created by the demand of a high operations 
tempo, our readiness now faces additional challenges in an economically 
austere environment. If the current sequestration cuts were to occur, 
our understanding is that approximately $18 billion would be cut from 
DOD's operation and maintenance (O&M) budget. If DOD were then forced 
to operate under a 1-year Continuing Resolution, the O&M budget would 
be cut by an additional $11 billion. Furthermore, to ensure that 
Overseas Contingency Operations are funded, another $11 billion would 
then have to be cut out of the base O&M budget.
    If this scenario were to unfold, how would you provide oversight, 
prioritize resources, and ensure the readiness of the force is 
sustained?
    Answer. The magnitude of sequestration cuts make it impossible for 
the Services to avoid cuts to vital training capabilities, training 
infrastructure, and training deliverables. Ensuring the readiness of 
the force is sustained, other than those units that are next to deploy, 
will be virtually impossible. The Army has stated that cuts to training 
and maintenance will put two-thirds of their active brigade combat 
teams outside of Afghanistan at reduced readiness levels. Navy 
operations in the western Pacific, including training, will be reduced 
by as much as one-third. With less training and steaming days, the Navy 
will inevitably reduce unit readiness levels. The Air Force has stated 
that sequestration cuts to their flying hour program will put flying 
units below acceptable readiness standards by the end of the fiscal 
year. The furlough of DOD civilians will include civilians at training 
centers across the country, reducing the quality and quantity of 
training immediately, with long-lasting impacts on readiness.
    It is clear that sequestration and a continuing budget resolution 
will devastate our readiness. When we are not allowed by legislation to 
manage individual pieces of the budget, readiness accounts inevitably 
pay the price, thus prioritizing resources is problematic. I will work 
closely with the Services and Joint Staff, through our various 
readiness assessment processes, to identify those readiness shortfalls 
that require the attention of the Department's most senior leadership.
    Question. Are these potential sequestration cuts to the O&M budget 
accurate?
    Answer. As I understand it, as part of the overall cut of the $46 
billion cut, the Department's O&M accounts will be reduced by $13 
billion from the annualized CR level. We must protect the O&M dollars 
for our men and women in combat, which under sequestration rules we can 
only do by cutting base-budget O&M disproportionately--this results in 
an additional shortfall of $5 billion in active base-budget dollars, 
for a total of an $18 billion cut.
    If the Continuing Resolution is extended in its current form 
throughout the year, it exacerbates problems because it does not 
provide enough dollars in O&M--adding an additional shortfall of $11 
billion.
    Question. In your view, what are the indicators of a hollow force?
    Answer. It would be a force that has been rendered incapable of 
performing the mission that we expect it to conduct. While the units 
may exist, they would not have the personnel, equipment, and/or 
training necessary to make them capable of executing the defense 
strategy or responding to the most likely contingencies. Additionally, 
part of avoiding a hollow force is ensuring we have a clear 
understanding of the size of the force we can afford to keep ready and 
then adhering to that plan.
    Question. How has the DRRS contributed to managing risk within DOD?
    Answer. DRRS provides the Department with a capabilities centric 
look at readiness which has allowed commanders and staffs to understand 
readiness issues that directly impact their mission and equate to 
operational risk. This knowledge provides situational awareness that 
allows them to initiate operational problem solving, identify 
capability gaps, conduct trend, threshold and predictive analysis, 
create capability Force Package designs and strategies to solve or 
mitigate readiness issues and mitigate risks.
    Question. How would the DRRS inform your decisionmaking process in 
order to reduce risk?
    Answer. DRRS contains detailed information on not only what units 
are capable of; it also contains data on the resources and training 
status on which those capabilities are based. In this sense, it 
provides an empirical understanding of why readiness is degraded and 
what the associated consequences are. This understanding is essential 
to identifying systematic problems and identifying potential mitigation 
options.
    Question. Why are commanders allowed to subjectively upgrade their 
unit's readiness, if the intent of the DRRS is to accurately portray 
unit readiness up the chain of command?
    Answer. DRRS, like Status of Resources and Training Systems 
(SORTS), allows for commanders' upgrades because an assessment of 
whether a unit can accomplish their assigned mission is far too complex 
to rely on simplistic rules on interpreting data. Intangibles, nuances, 
and positive and negative synergies among causal factors can be 
extremely important in determining an accurate assessment and we trust 
commanders with the responsibility to make those calls. One mechanism 
that we use to make sure we understand the final assessments is to 
monitor the empirical/non-subjective data on which they are built. This 
includes not only unit-level data, but also maintaining some visibility 
on the man/train/equip pipeline processes that generate unit readiness.
    Question. If either sequestration or a full-year Continuing 
Resolution is to be implemented, how should they be modified to reduce 
the impact on readiness? Would additional reprogramming authority be 
required?
    Answer. Both should be modified to allow the Department the 
flexibility to allocate our resources to our highest priorities. When 
we are not allowed by legislation to manage individual pieces of the 
budget, readiness accounts inevitably pay the price. Everything needs 
to be on the table. This should include military and civilian force 
reductions, basing, and balancing Active and Reserve components. 
Adequate flexibility will also require support for follow-on 
reprogramming authority.
                         joint training system
    Question. In June of last year, the Chairman of the Joint Chiefs of 
Staff published CJCS Guide 3501: The Joint Training System, which 
provides an overview of the Joint Training System (JTS) and highlights 
the role of senior leadership in the planning, execution, and 
assessment of joint training.
    What is your assessment of the effectiveness of the current JTS?
    Answer. Today's force is more joint than at any time in our 
history. Through a decade of conflict our military members have evolved 
from a Service-centric force to a more capable force which includes 
both Service-unique attributes as well intentional Service 
interdependencies.
    The Joint Training System described in CJCS Guide 3501 is focused 
on the warfighting organizations--namely the combatant commands and 
their Service components. As such, the JTS focuses at the strategic and 
operational levels, where combatant commanders can assess their 
readiness to ``integrate and synchronize assigned forces to meet 
mission objectives''.
    One additional aspect of joint readiness bears mentioning here. 
While the JTS focuses at the strategic and operational levels of 
operations, joint readiness (and by extension, joint training) extends 
down to the tactical level as well. Services--including Service 
components of combatant commands--must be resourced to ``train the way 
they operate''. This includes joint tactical interoperability training. 
While tactical training is not the primary focus of the JTS, such 
training is also at risk in the current fiscal environment. As Services 
retrench into title 10 focus on core competencies, adequate resources 
specifically allocated for joint training must be preserved. JTS would 
be a more complete system if it provided a conceptual framework for 
combatant commanders and Services to plan, resource, and conduct joint 
tactical training in addition to operational training for combatant 
command staffs.
                            training ranges
    Question. DOD is fielding Unmanned Aircraft Systems (UAS) in 
greater numbers which has created a strong demand for access to 
national airspace to conduct training and for other purposes. The 
demand has quickly exceeded the current airspace available for military 
operations.
    What is your understanding and assessment of DOD's efforts to 
develop a comprehensive training strategy for the Department's UAS, to 
include identifying any shortfalls associated with current policies, 
education, stationing plans, and simulator technologies?
    Answer. The DOD UAS Training Strategy is currently being developed 
and the Department will be providing a report to Congress in July on 
its progress in this area. The training strategy will address critical 
elements of UAS training--unit collective training and home station 
training of pilots, sensor operators, and ground controllers. We 
anticipate that the report will identify and address shortfalls 
associated with current policies, training, basing, national airspace, 
and training technologies.
                       defense strategic guidance
    Question. The 2012 Defense Strategic Guidance stressed that the 
Department will need to examine the mix of Active and Reserve component 
elements and stated that the expected pace of operations over the next 
decade will be a significant driver in determining an appropriate mix 
of AC/RC forces and level of readiness.
    What is your assessment of the implications of a reduction in the 
pace of operations on the AC/RC mix and Reserve readiness?
    Answer. The National Guard and Reserve have clearly proven the 
ability to accomplish any assigned mission whether overseas or at home. 
As the pace of operations declines, it is my opinion the National Guard 
and Reserve will continue to play a vital role in our national defense. 
Recent changes in laws permitting greater access to the Reserve 
component (RC), coupled with the proven abilities and current high 
state of readiness of the Reserve Forces affords the Department greater 
flexibility when determining appropriate force levels and AC/RC mix. In 
a constrained resource environment, the RC gives the department a 
unique opportunity to preserve overall operational capability and 
mitigate risk at reduced costs.
    Question. In your view, how can the missions of the Reserve Forces 
expect to change to meet new priorities?
    Answer. Over the last decade, the Department has learned a 
significant amount about using Reserve Forces in many different mission 
sets. The upcoming Quadrennial Defense Review will lay the ground work 
for assigning mission sets to all forces. If confirmed, I will work 
closely with the Services, the Reserve Chiefs, and the Chief of the 
National Guard Bureau to determine the most effective mix and makeup of 
Active, Reserve, and Guard personnel to support the National Military 
Strategy.
      reserve component as a trained and ready operational reserve
    Question. One outcome of 10 years of continuous operations in Iraq 
and Afghanistan, that has included the mobilization of thousands of 
Guard and Reserve Forces, has been the realization that our Reserve 
components have evolved from a rarely used strategic reserve to a more 
frequently used operational reserve.
    In your view, what are the essential elements of readiness, if any, 
that distinguish the Reserve component as an operational reserve as 
opposed to a strategic reserve?
    Answer. The decade plus of war has transformed the Reserve 
component from a strategic force rarely used to an integral partner of 
our national defense. In my opinion the most essential element of 
readiness is people. Today our Reserve component has experienced and 
skilled people. The combination of their combat experience and civilian 
skills make them vitally important to our Nation's defense. I think the 
continued use of the RC as a full partner in the Total Force is the 
difference between the strategic reserve of the Cold War and the 
required efficient use of all elements of the Total Force going 
forward--Active, Guard and Reserve, civilian, and contractor.
             active duty and reserve component end strength
    Question. The Department last year announced its 5-year plan to 
reduce Active Duty end strengths by over 100,000 servicemembers by 
2017, and the Reserve components by another 21,000 over the same 
period. These cuts do not include any additional personnel reductions 
that could result from sequestration or any agreement to avoid 
sequestration.
    Do you agree with this plan to reduce Active Duty and Reserve 
component end strengths?
    Answer. If confirmed, I will continue to review the plan, but I 
believe the end strength drawdown allows us to achieve the right size 
force and keep it modern. The plan is designed to maintain capable and 
ready military forces while managing reductions in a way that ``keeps 
faith'' with forces that have been at war for the past 10 years. As 
future national security conditions could change, our planned drawdown 
could change accordingly.
    Question. What is your view of how these planned end strength 
reductions will affect dwell time ratios?
    Answer. I understand that all of the Services, on average, are 
meeting or exceeding the Department's dwell time goal of 2 years at 
home for every year deployed, or 1:2, for the Active component. If 
confirmed, I will continue to monitor this issue closely.
    The Reserve component dwell time is improving, but has not reached 
the Department's dwell time goal of 5 years at home for every 1 year of 
Active Duty, or 1:5. If confirmed, I will continue to work toward the 
goal of a 1:5 dwell time ratio for the Reserve component.
    Question. What effect would inability to meet dwell time objectives 
have on the decision to implement the planned end strength reductions?
    Answer. The Services are continually monitoring dwell time, if 
there are any early indicators that the end strength reductions are 
affecting the ratio, I will work with the Services to address the 
issues. Re-examination of end strength reductions would certainly be 
one of the considerations to remedy potential dwell problems.
    Question. What additional military personnel reductions do you 
envision if the sequester is triggered in accordance with the Budget 
Control Act?
    Answer. If the Department were required to sequester funding, I 
believe that it would first require a revision of the current National 
Security Strategy announced by the President last January. The current 
strategy could not be met with the significantly diminished resources 
that sequester would impose. The revised strategy could very well 
impact all components of the total force--Active Duty military, Reserve 
component military, Government civilians, and contractors.
    Question. In your view, what tools do the Department and Services 
need to get down to authorized strengths in the future, and which of 
these require congressional authorization?
    Answer. The Department already has or has been granted the total 
force shaping tools necessary to meet the drawdown in its current plan.
                        military quality of life
    Question. In your view, what is the relationship between military 
recruitment and retention and quality-of-life improvements and your own 
top priorities for the Armed Forces?
    Answer. The Military Services must attract and retain people with 
the necessary talent, character, and commitment to become leaders and 
warriors in the Nation's Armed Forces. The military has consistently 
used a coordinated recruiting and retention strategy which maximizes 
the efficient use of our greatest asset--our people. This strategy 
consists of monetary and non-monetary compensation packages that 
include the use of special pays, enlistment bonuses, educational 
benefits and quality of life programs. It has long been said that you 
recruit an individual and retain a family. As such, it is critical that 
quality of life (family, education, child-care, housing), quality of 
service (work environment, infrastructure capacity, and support, time 
to train), and compensation (pay and benefits) are constantly evaluated 
and adjusted to respond to needs of an evolving force and to varying 
economic conditions. Recruiting and retention strategies must be able 
to generate success in both good and bad economic times. The Services 
cannot afford to wait for recruiting and retention misses to signal a 
need for adjustments--adjustment tools and authorities to achieve skill 
and strength requirements must be set as a priority and readily 
available.
    Question. If confirmed, what further enhancements to military 
qualify of life would you consider a priority, and how do you envision 
working with the Services, combatant commanders, family advocacy 
groups, and Congress to achieve them?
    Answer. I recognize that the well-being of the force, as well as 
recruiting and retention efforts, are significantly impacted by quality 
of life programs. If confirmed, I look forward to coordinating the 
efforts of the Services and combatant commanders in order to ensure we 
have a comprehensive, accessible, and affordable suite of programs. We 
will continue our work with Congress and family advocacy groups to 
supplement and enhance our programs and services as needed.
                      family readiness and support
    Question. Senior military leaders have warned of growing concerns 
among military families as a result of the stress of frequent 
deployments and the long separations that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families, and, if confirmed, how 
would you ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. Quality of Life programs and services consistently rank 
high among the considerations of servicemembers and their families when 
deciding whether to stay in the military. Families will need assistance 
to reintegrate, and communicate with each other after a decade of 
deployments and long separations. Programs and services need to be 
readily accessible in order to provide servicemembers and their 
families established support programs using a variety of delivery 
systems, including in-person, web-based, or online support. The DOD 
Family Advocacy Program (FAP) provides funding and resources to the 
Military Departments to strengthen families. FAP is one of the many 
family readiness programs within the Department, and DOD remains 
steadfast in its commitment to ensure adequate personnel and resources 
are available to assist, assess, and treat servicemembers and their 
families when and where needed. Moreover, we work closely with the 
civilian community and our Federal partners to support military 
families.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and anticipated reductions in 
end strength?
    Answer. Key areas of focus will be on downsizing, and providing 
support for transition planning throughout the military life cycle. 
This will include the active engagement of family members in the 
process. It will be important to continue to develop family readiness 
so that military families can continue to face the anticipated 
challenges associated with global rebasing, deployments and anticipated 
reductions in end strength.
    Question. If confirmed, how would you ensure support is provided to 
Reserve component families related to mobilization, deployment and 
family readiness, as well as to active duty families who do not reside 
near a military installation?
    Answer. DOD is not resourced to meet all the needs of military 
families. Actively engaging military families in community-based 
programs and services by encouraging participation in the design, 
development, and delivery of such programs and services will ensure 
that they meet the needs of military families. A variety of programs 
and services are already available to assist with the networking, 
coordination, and collaboration that is necessary to build community 
capacity to support military families.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. We must continue to work with civilian communities where 
most military families live to promote quality of life enhancements 
that address military and family readiness challenges. Beyond looking 
to the local community, DOD will continue to assist in workforce 
development efforts already underway to create a cadre of service 
providers who can provide that support within DOD. This will occur 
through our partnership with professional educational institutions and 
with local, State, Federal, public, and private agencies and 
organizations. If confirmed, I will continue to build upon these 
relationships with community partners to provide the necessary 
services.
                   military child development centers
    Question. Late last year, the Army announced that it was conducting 
a 100 percent audit of employee background check processes at all 283 
of its child care facilities at installations in the United States and 
overseas because ``derogatory'' information was found in the security 
background checks of employees at the Joint Base Myer-Henderson Hall 
Child Development Center. As a result, the Secretary of Defense ordered 
a 100 percent background check audit of all providers who have regular 
contact with children in DOD Child Development Centers, School Age Care 
Programs, and Youth Programs, and a 100 percent review and evaluation 
of the actual background check documentation on file for each 
individual, employee and volunteer, for compliance with applicable DOD 
and Military Service policies. Subsequently, DOD reviewed over 44,000 
records and reported validation of background checks had been initiated 
across the Department as required. Additionally, at the time of the 
review, approximately 1,200 background checks were pending 
adjudication.
    What is the status of the remaining background checks pending 
adjudication?
    Answer. Because of the length of time required for the adjudication 
process, there will always be background checks in adjudication. 
Adjudication is the process through which an employee is evaluated for 
suitability of employment. Currently, the adjudication process is 
specific to each Military Service. It is important to note the FBI 
background checks, which include fingerprints, often require months for 
completion and it is typical for all programs to have some background 
checks in process/pending. For employees whose background checks are 
pending, those individuals are either working within line-of-sight 
supervision in accordance with Public Law 102-190, section 1094, or are 
not yet working in the program.
    Question. Are you convinced that the Services performed these 
reviews adequately and thoroughly?
    Answer. Yes. Additionally, this audit revealed some areas for 
improvement and, as a result, all applicable directives and other 
regulatory guidelines will be updated to ensure these improvements are 
incorporated. DOD leadership and child development program staff are 
committed to high quality and consistent delivery of these services and 
to ensure the safety and well-being of children in our care.
    Question. Are policies and programs in place now to ensure the 
safety and welfare of children in Child Development Centers, School Age 
Care Programs, and Youth Programs in the future?
    Answer. DOD has a longstanding standardized and comprehensive 
process for screening applicants for positions involving child care 
services on DOD installations and in DOD activities. By law, employment 
applications must include a question as to whether the applicant has 
ever been arrested for or charged with a crime involving a child. The 
application states that it is being signed under penalty of perjury. 
Additionally, we are required by law to conduct at least two types of 
background checks on every employee who works with children in child 
and youth programs. DOD conducts additional background checks, and the 
Military Departments and Defense Agencies have the discretion to 
conduct more restrictive screenings. These background checks are part 
of a system of measures currently in place to ensure children's safety 
in DOD programs.
    Question. Are OSD policies and programs in place to provide 
continued oversight of these programs in the future?
    Answer. Based on the findings of the review, we are strengthening 
our policies, specifically highlighting prompt and consistent 
adjudication. In addition, the Military Departments and Defense 
Agencies will increase oversight during unannounced annual inspections 
of these facilities and programs.
                 department of defense schools in conus
    Question. Some have questioned the continuing need for DOD-operated 
schools for military dependent children within the Continental United 
States (CONUS).
    In your view, should DOD reassess or update its criteria for the 
continued operation of DOD schools within CONUS?
    Answer. The Department intends to conduct a comprehensive study to 
determine the feasibility of transferring the CONUS based DOD schools. 
The Department's planned study that will examine such factors as the 
quality of education, adequacy of Impact Aid funding, State laws and 
prohibitions on using tax revenues for a public education on Federal 
property (e.g., Delaware), capacity of LEAs to assume the educational 
responsibility, adequacy of educational and support services for 
military dependents, and impact on the morale of military families. The 
study will also examine any viable educational alternatives to DOD 
ownership.
    Question. If so, and if confirmed, how would you approach this 
task?
    Answer. If confirmed, I will closely examine the issue and the 
results of the study considering all dimensions and all 
recommendations.
                       conditions of k-12 schools
    Question. In 2011, The Department of Defense committed to a $4 
billion plan to renovate or construct new K-12 DOD Education Activity 
(DODEA) schools over 5 years in order to address inadequate and 
deteriorated facility conditions throughout the DODEA facility 
inventory. In response, Congress called upon the Department to develop 
a minimum standard of design to ensure that DODEA would provide world-
class education facilities for the children of military members.
    What is your assessment of this construction program?
    Answer. It is critical that we continue with the school 
construction program. Nearly 70 percent of our schools are in poor 
condition. The Department recognized this growing problem, and approved 
a multi-billion dollar construction program through 2018. These schools 
are being designed to meet the high-technology teaching and learning 
requirements of the 21st century and leverage ``green'' technologies to 
improve the environmental impact and long-term operating costs.
    Question. If confirmed, will you continue the investments to 
achieve the goal to provide world-class schools?
    Answer. A world-class education is a top quality of life and 
readiness factor for our military families. Dependent education 
consistently has been a top priority for the Department. I will 
continue to ensure that we invest in the education of our children, and 
maintain a top-quality education for our military dependents.
    Question. What is your position on the use of defense funds to pay 
for facility improvements for schools that are owned and operated by 
local education activities?
    Answer. The Department continues to work closely with local school 
districts to address the capacity shortfalls and physical condition 
deficiencies in many of the 160 public schools located on military 
installations. It remains important for the Department to continue the 
administration of the public schools on military installation grant 
program, which, as of February 21, 2013, has distributed more than $208 
million to projects for 10 of the 12 highest priority schools. If 
confirmed, I would support the President's fiscal year 2013 budget 
request to continue the program.
    Question. If confirmed, how would you work with local education 
activities to ensure an adequate level of investment is provided to 
schools with a predominant student population of Military Dependents?
    Answer. If confirmed, I will continue to work with the Department 
of Education and support the full funding of Impact Aid. Annually, the 
Department offers about $35 million in grants which have provided 
school districts funding to expand learning opportunities in such areas 
as foreign languages; STEM, and Advanced Placement Math, Science, and 
English and will continue to leverage available resources to provide 
the educational opportunities for all 1.2 million school-aged children 
of our military families and remain committed to providing a quality 
education for all military dependents
    Question. What is your view on the adequacy of the Department of 
Defense's involvement with the Impact Aid Program?
    Answer. The DOD Supplement to Impact Aid program is an important 
additional source of funding for local school districts that have lost 
property tax revenue due to the enrollment of a large number of 
military-connected children. The Department faces challenging budgetary 
uncertainties at this time. Many programs are underfunded. Impact Aid 
is no exception.
    Question. If confirmed, would you recommend any changes to the 
Impact Aid program?
    Answer. The Department of Education has made significant 
enhancements to this program since its inception. The Department's 
study of the DOD Domestic Schools will also examine Impact Aid issues.
  office of community support for military families with special needs
    Question. In the National Defense Authorization Act for Fiscal Year 
2010, Congress required the establishment of an Office of Community 
Support for Military Families with Special Needs within the Office of 
the Under Secretary of Defense for Personnel and Readiness. The purpose 
of this office is to enhance and improve Department of Defense support 
for military families with special needs, whether educational or 
medical in nature.
    In your view, what should be the priorities of this Office of 
Community Support for Military Families with Special Needs?
    Answer. A key priority for the Office of Community Support for 
Military Families with Special Needs is to strengthen personal 
readiness for military families with special needs through a 
comprehensive policy, oversight of programs that support military 
families with special needs, identification of gaps in services to such 
families, and the accessibility to appropriate resources.
    Presently, over 126,000 military family members are enrolled in the 
Exceptional Family Member Program (EFMP). The EFMP supports military 
families with special medical and/or educational needs in three 
components areas: identification/enrollment, assignment coordination to 
determine the availability of services at a projected location, and 
family support to help families identify and access programs and 
services.
    Question. If confirmed, how would you ensure outreach to those 
military families with special needs dependents so they are able to get 
the support they need?
    Answer. Communication with military families with special needs and 
the provision of information about the EFMP is a major focus of DOD. If 
confirmed, I will ensure the Department continues to develop and 
implement a comprehensive communication and marketing plan designed to 
deliver consistent information about the EFMP to families, service 
providers, and leadership. We will also continue to solicit input from 
families with special needs through the Special Needs Advisory Panel, 
as mandated by Congress.
                            gi bill benefits
    Question. Congress passed the Post-9/11 Veterans Educational 
Assistance Act in 2008 (Post-9/11 GI Bill) that created enhanced 
educational benefits for servicemembers who have served at least 90 
days on Active Duty since September 11. The maximum benefit would 
roughly cover the cost of a college education at any public university 
in the country.
    What unresolved issues related to implementation of the Post-9/11 
GI Bill (e.g., coverage of additional military personnel) do you 
consider most important to be addressed?
    Answer. With the recent change in Public Law 111-277 that corrected 
technical issues related to National Guard (title 32) service, I 
believe all Armed Service Veterans are fully covered.
    Question. What is your assessment of the impact of the Post-9/11 GI 
Bill on recruiting and retention, including the provision of 
transferability for continued service?
    Answer. Post Service education benefits have been a cornerstone of 
our military recruiting efforts since 1985, and a major contributor to 
the success of the All-Volunteer Force. Money for education has been, 
and remains at the forefront of reasons young Americans cite for 
joining the military. There is no doubt that the Post-9/11 GI Bill will 
continue to have this same impact. The Department of Defense is an 
``education'' employer. We hire educated young people, invest in them 
while in Service, and we encourage them to invest further in themselves 
when they leave. The VA-administered education benefits, and in 
particular the Post-9/11 GI Bill, facilitates that investment.
            military and veteran education program oversight
    Question. Congress remains interested in strengthening oversight of 
Department of Defense and Department of Veterans Affairs education 
programs, including the VA's Post-9/11 GI Bill, and DOD's tuition 
assistance and Military Spouse Career Advancement Accounts (MyCAA) 
programs.
    What is your view of proposals that would require that all schools 
participating in these programs be compliant with title IV of the 
Higher Education Act, so long as the administering Secretaries had the 
authority to exempt such requirements on a case-by-case basis?
    Answer. DOD supports the proposal and is clarifying policies to 
ensure tuition assistance funding will only be paid to educational 
institutions accredited by an accrediting organization, recognized by 
the Department of Education, approved for Department of Veterans 
Affairs funding, and participating in Federal student aid programs 
through the Department of Education under title IV of the Higher 
Education Act of 1965.
    Question. What is your view of proposals to change the so-called 
90/10 rule to exempt these programs from the calculation altogether, as 
has been proposed by officials of the Bureau for Consumer Financial 
Protection and others?
    Answer. DOD has no objection with the proposal to exempt title X 
tuition assistance funds from the 90/10 calculation. Technical 
assistance and oversight of any statutory changes to the proposed 90/10 
rule should reside with the Department of Education.
                    morale, welfare, and recreation
    Question. What challenges do you foresee in sustaining Morale, 
Welfare, and Recreation (MWR) programs, particularly in view of the 
budget challenges the Department faces?
    Answer. Quality of life programs for our military members and their 
families are essential to the resiliency of the force, as well as to 
recruiting and retention efforts. Changes in our basing, deployment 
patterns and force structure have had a significant impact on our 
ability to deliver quality of life programs to our military families. 
With more than 75 percent of military families now living off 
installation, there is an increasing need for partnerships and support 
from local governments, school systems, and businesses to ensure we 
continue to provide comprehensive, accessible, and affordable quality 
of life programs. Additionally, we are conducting a major assessment of 
Morale, Welfare, and Recreation programs to ensure they are being 
operated in as efficient and cost-effective manner as possible.
    Question. How would you seek to deal with these challenges?
    Answer. Sustaining family programs in the current fiscally 
constrained environment will be challenging but of vital importance as 
we seek to reach servicemembers on and off the installations. If 
confirmed, I will make every effort to protect funding for family 
quality of life programs to the greatest extent possible and ensure 
they are operating efficiently. Good stewardship demands that available 
resources are utilized in the most effective manner.
    Question. If confirmed, what improvements would you seek to 
achieve?
    Answer. We have a responsibility to ensure access to quality 
programs, information and resources regardless of where our 
servicemembers and their families are located. I've mentioned the need 
to develop and maintain a strong network of community-based providers. 
We'll need to enhance our information and referral resources by 
maximizing electronic opportunities provided through internet social 
networking avenues and electronic applications. We also have 
opportunities to improve the effectiveness of outreach programs, to 
better meet military families where they live. If confirmed, I will 
evaluate these opportunities, and how we can better coordinate efforts 
among the various entities providing support to our military members 
and their families.
                commissary and military exchange systems
    Question. What is your view of the need for modernization of 
business policies and practices in the commissary and exchange systems, 
and what do you view as the most promising avenues for change to 
achieve modernization goals?
    Answer. Both the Defense Commissary Agency (DeCA) and the military 
exchanges are progressive organizations seeking to reduce costs within 
their respective businesses. DeCA, for example, has a proven history of 
reducing the costs of the commissary system without decreasing the 
value of the benefit provided. Since its beginning in 1991, 
efficiencies have allowed DeCA to reduce its workforce by almost 7,000 
full time equivalent positions and operating costs by approximately 
$700 million in constant fiscal year 1992 dollars. In fact, when 
measured in constant dollars, DeCA's operating costs are only slightly 
more than one-half of what they were when the Agency was created.
    Exchanges are evolutionary models driven by best business practices 
and the need to remain relevant to servicemembers in a highly 
competitive and ever-changing retail environment. Today's exchanges 
have gone beyond the traditional brick and mortar environment, 
embracing e-commerce and mobile retail channels to satisfy customer 
demands. They are using digital marketing and social media that are now 
common in the marketplace for customer outreach. In the traditional 
brick and mortar environment, robust infrastructure re-investments, new 
branding strategies, enhanced customer service postures, supply chain 
enhancements, and targeted merchandise assortment driven by unique 
installation customer demographics are all delivering a customer 
shopping experience on par or better than the most successful retailers 
in the commercial market place. The exchanges continue to exceed the 
DOD Social Compact on savings for servicemembers.
    For the Exchanges, there are already mechanisms for modernization 
through the Cooperative Efforts Board. Promising areas for change 
include non-resale procurement, logistics and distribution, exchange 
select/private label, legislative and policy, and seasonal and one time 
buys.
    Question. What is your view of the proposals by some to consolidate 
or eliminate commissaries and exchanges?
    Answer. Eliminating the commissary and exchanges would be a direct 
hit on military compensation. In fiscal year 2012, commissaries saved 
military shoppers approximately $2.76 billion, a return of more than 
double the $1.31 billion annual commissary appropriation. At a personal 
level, a family of four shopping at the commissary regularly can save 
$4,500 a year. Exchanges, which receive very little appropriated fund 
support, save our customers 22 percent, on average, over commercial 
retail stores.
    Commissary and exchange benefits form a major part of the military 
community support structure that contributes to mission readiness. The 
commissary continues to be one of the most popular non-pay compensation 
benefits of our military members. Exchanges provide valuable savings at 
home and essential health, comfort and convenience items to military 
personnel in forward deployed and combat areas. Military families would 
rightfully view the elimination of these systems as a significant 
reduction of their compensation.
                       civilian personnel systems
    Question. Section 1113 of the National Defense Authorization Act 
for Fiscal Year 2010 provides DOD with extensive personnel 
flexibilities for its civilian employees that are not available to 
other agencies. In particular, section 9902(a) of title 5, U.S.C., as 
added by section 1113, directs the Department to establish a new 
performance management system for all of its employees. Section 9902(b) 
directs the Department to develop a streamlined new hiring system that 
is designed to better fulfill DOD's mission needs, produce high-quality 
applicants, and support timely personnel decisions.
    What is your understanding of the current status of the 
Department's efforts to implement the authority provided by section 
1113?
    Answer. I understand the Department and organizations that 
represent DOD employees, including unions and the Federal Manager's 
Association, worked collaboratively over a span of 18 months to design 
a performance management system and improved hiring processes. The 
Department launched its pre-decisional collaborative process that came 
to be known as ``New Beginnings'' in the spring of 2010. The effort 
culminated in a comprehensive report from three joint labor-management 
design teams. All recommendations have been reviewed through the 
Departmental process. If confirmed, I will continue to support the work 
that is underway to comply with the National Defense Authorization Act.
    Question. Do you agree that DOD's civilian employee workforce plays 
a vital role in the functioning of the Department?
    Answer. Yes, DOD's civilian employee workforce plays an 
instrumental role in the functioning of the Department as part of the 
total force across a range of missions.
    Question. If confirmed, will you make it a priority to implement 
these flexibilities in a manner that best meets the needs of the 
Department and promotes the quality of the Department's civilian 
workforce?
    Answer. Yes, if confirmed, I would make it my priority to implement 
those flexibilities that would facilitate accomplishing the 
Department's missions.
    Question. Section 1112 of the National Defense Authorization Act 
for Fiscal Year 2010 directs the Department to develop a Defense 
Civilian Leadership Program (DCLP) to recruit, train, and advance a new 
generation of civilian leaders for the Department. Section 1112 
provides the Department with the full range of authorities available 
for demonstration programs under section 4703 of title 5, U.S.C., 
including the authority to compensate participants on the basis of 
qualifications, performance, and market conditions. These flexibilities 
are not otherwise available to the Department of Defense.
    What is your understanding of the current status of the 
Department's efforts to implement the authority provided by section 
1112?
    Answer. I understand that the Department has designed a new 
leadership program and has graduated the first cohort. Still in the 
pilot phase, a second cohort is underway. If confirmed, I will fully 
engage to ensure the new program meets the intent of the NDAA 
authority.
    Question. Do you agree that the Department needs to recruit highly 
qualified civilian personnel to meet the growing needs of its 
acquisition, technical, business, and financial communities?
    Answer. Yes. I completely agree that recruiting highly qualified 
civilian personnel both in mission critical occupations, such as 
acquisition and finance, and in leadership positions across the 
Department is essential to mission success.
    Question. In your view, has the existing civilian hiring process 
been successful in recruiting such personnel and meeting these needs?
    Answer. Although I believe the Department currently has a highly 
talented workforce, I wholeheartedly support the initiatives to 
streamline and reform the civilian hiring process. While I understand 
the Department is making progress, there is still work to be done in 
this area, and if confirmed, I would ensure the Department continues to 
actively engage in civilian hiring reform initiatives and aggressively 
pursues continued improvements.
    Question. If confirmed, will you make it a priority to implement 
the authority provided by section 1112 in a manner that best meets the 
needs of the Department and promotes the quality of the Department's 
civilian workforce?
    Answer. Yes, if confirmed I will make it a priority to implement 
the authority provided by section 1112. The Department recognizes the 
need for an improved leader-development model to attract, retain, and 
develop civilian leaders to support pipeline readiness and enhance 
bench strength. If confirmed, I will assess the section 1112 pilot 
outcomes to ensure a successful framework for developing the next 
generation of innovative leaders with the technical competence to meet 
the future leadership needs of the Department.
                         human capital planning
    Question. The Department of Defense faces a critical shortfall in 
key areas of its civilian workforce, including the management of 
acquisition programs, information technology systems and financial 
management, and senior DOD officials have expressed alarm at the extent 
of the Department's reliance on contractors in these areas. Section 
115b of title 10, U.S. Code, requires the Department to develop a 
strategic workforce plan to shape and improve its civilian employee 
workforce.
    Would you agree that the Department's human capital, including its 
civilian workforce, is critical to the accomplishment of its national 
security mission?
    Answer. Yes. I believe such planning would well position the 
Department to acquire, develop, and maintain the workforce it needs to 
meet current and future mission challenges.
    Question. Do you share the concern expressed by others about the 
extent of the Department's reliance on contractors in critical areas 
such as the management of acquisition programs, information technology 
and financial management?
    Answer. We must ensure that we have a properly sized, and highly 
capable, civilian workforce that guards against an erosion of critical, 
organic skills and an overreliance on contracted services, particularly 
in such areas as acquisition program management, information 
technology, and financial management. If confirmed, I will continue to 
support the administration's and Department's focus on reducing 
inappropriate or excessive reliance on contracted support, particularly 
for critical, and closely associated with inherently governmental, 
work. I will continue to support the ongoing efforts to further utilize 
the Strategic Workforce Plan to mitigate against civilian workforce 
competency gaps and skill shortfalls in these areas.
    Question. If confirmed, will you ensure that the Department 
undertakes necessary human capital planning to ensure that its civilian 
workforce is prepared to meet the challenges of the coming decades?
    Answer. If confirmed, I would ensure Department decisions on 
workforce shaping align with the Department's long-term strategic 
workforce plan, with the understanding that short-term exceptions may 
be needed due to emerging dynamics in the budget environment. Forecasts 
for the Department's workforce must be based on validated mission 
requirements and workload, both current and projected, and any 
reductions in the civilian workforce must be directly linked to 
workload so as to not adversely impact overall mission capabilities.
    Question. Section 955 of the National Defense Authorization Act for 
Fiscal Year 2013 requires a 5 percent reduction in anticipated funding 
levels for the civilian personnel workforce and the service contractor 
workforce of the Department of Defense, subject to certain exclusions.
    What impact do you expect the implementation of section 955 to have 
on the programs and operations of the Department of Defense?
    Answer. Section 955 requires a reduction in available funding for 
the civilian workforce and contracted support, and as such, is being 
led by the Office of the Under Secretary, Comptroller. The impact of 
how section 955 will be implemented is still being determined and I do 
not have enough information at this time to speak to specific impacts 
to programs and/or operations. If confirmed, I will work with my 
counterparts in Comptroller to ensure that the Department's 
implementation of section 955 is done in a manner that reduces mission 
impact and mitigates risk to programs and operations, while maintaining 
core capabilities and support to our warfighters and their families.
    Question. What steps will you take, if confirmed, to ensure that 
section 955 is implemented in a manner that is consistent with the 
requirements of section 129a of title 10, U.S.C., for determining the 
most appropriate and cost-efficient mix of military, civilian and 
service contractor personnel to perform DOD missions?
    Answer. If confirmed, I will work with my counterparts in 
Comptroller to ensure implementation of section 955 recognizes that the 
sourcing of work among military (Active/Reserve), civilian, and 
contracted services must be consistent with requirements, funding 
availability, readiness and management needs, as well as applicable 
laws (such as section 129a of title 10, U.S.C.) and other total force 
management and workload sourcing mandates. The Department must avoid 
any inappropriate transfer of work from civilians to contract support 
or military personnel. We must also ensure the most cost effective 
performance possible while being mindful that risk mitigation must take 
precedence over cost considerations to ensure mission success and 
prevent an overreliance on contractors.
    Question. What processes will you put in place, if confirmed, to 
ensure that the Department implements a sound planning process for 
carrying out the requirements of section 955, including the 
implementation of the exclusion authority in section 955(c)?
    Answer. If confirmed, I will work with my counterparts in 
Comptroller to ensure the requirements of section 955 are implemented 
in manner which complements the Department's current processes for 
workforce determinations, which strive to achieve effective and 
efficient total force manpower solutions consistent with law and 
available resources. While I cannot speak to specific exclusions, I 
will work to ensure that the workforces of the Department are sized to 
perform the functions and activities necessary to achieve the missions 
and enable the capabilities of the Department.
                         acquisition workforce
    Question. Section 852 of the National Defense Authorization Act for 
Fiscal Year 2008 established an Acquisition Workforce Development Fund 
to help the Department of Defense address shortcomings in its 
acquisition workforce. This provision was amended by the National 
Defense Authorization Act for Fiscal Year 2013 to ensure a continuing 
source of funds for this purpose.
    Do you believe that the DOD acquisition workforce development fund 
is still needed to ensure that DOD has the right number of employees 
with the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. The acquisition workforce development fund has been 
instrumental in the Department's efforts to recapitalize its 
acquisition workforce and improve oversight, management, and 
accountability in the procurements of goods and services. I believe 
that the fund is still necessary to further enhance and sustain the 
training and expertise of our dedicated acquisition workforce.
    Question. If confirmed, what steps if any will you take to ensure 
that the money made available through the workforce development fund is 
spent in a manner that best meets the needs of the Department of 
Defense and its acquisition workforce?
    Answer. It is my understanding that management and execution of the 
acquisition workforce development fund is a joint responsibility of the 
Offices of the Under Secretaries of Defense for Acquisition, 
Technology, and Logistics and Comptroller. If confirmed, I will work 
with my counterparts in those offices to ensure that application of 
resources is done in a manner that is consistent with the training, 
development, and sustainment needs of the acquisition workforce.
    Question. One of the central tenets of the Department's Better 
Buying Power 2.0 is to improve the ``the Professionalism of the Total 
Acquisition Workforce.'' The Department has subdivided this tenet into 
four separate initiatives. These initiatives are:

    1.  Establish higher standards for key leadership positions.
    2.  Establish stronger professional qualification requirements for 
all acquisitions specialties.
    3.  Increase the recognition of excellence in acquisition 
management
    4.  Continue to increase the cost consciousness of the acquisition 
workforce--change the culture.

    If confirmed, how will you use funds from the Acquisition Workforce 
Development Fund to accomplish the objectives of these initiatives?
    Answer. These specific initiatives are under the purview of the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
and I cannot speak to their specifics. However, to improve overall 
stewardship of the Department's resources, the continuation of the 
workforce development fund to recruit, retain, train, and sustain a 
professional and highly skilled acquisition workforce is critical.
    Question. Section 872 of the Ike Skelton National Defense 
Authorization Act for Fiscal Year 2011 codifies the authority for the 
Department of Defense to conduct an acquisition workforce demonstration 
project and extends the authority to 2017.
    Do you believe it would be in the best interest of the Department 
to extend and expand the acquisition workforce demonstration project?
    Answer. The Department is authorized by law up to 120,000 employee 
participants covered under acquisition demonstration projects. It is my 
understanding that today the Department has 15,800 employee 
participants, the majority of which returned to the demonstration 
project following the repeal of the National Security Personnel System 
(NSPS) as directed by the NDAA for Fiscal Year 2010. With that 
complete, several acquisition organizations across all components have 
expressed interest in participating in the project. Project 
participation is voluntary and based on meeting acquisition related 
workforce demographic eligibility criteria.
    Question. What steps would you take, if confirmed, to implement 
section 872?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense for Acquisition, Technology and Logistics and the Department 
components to ensure the Department is effectively positioned to 
appropriately expand the Acquisition Demonstration project.
               laboratory personnel demonstration program
    Question. The laboratory demonstration program founded in section 
342 of the National Defense Authorization Act for Fiscal Year 1995 as 
amended by section 1114 of the National Defense Authorization Act for 
Fiscal Year 2001, section 1107 of the National Defense Authorization 
Act for Fiscal Year 2008, section 1108 of the National Defense 
Authorization Act for Fiscal Year 2009, and section 1105 of the 
National Defense Authorization Act for Fiscal Year 2010, paved the way 
for personnel management initiatives and new flexibilities at the 
defense laboratories. These innovations have been adopted in various 
forms throughout other DOD personnel systems.
    If confirmed, will you fully implement the laboratory demonstration 
program and the authorities under these provisions?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense for Acquisition, Technology, and Logistics to fully 
implement laboratory demonstration programs under these authorities.
    Question. If confirmed, will you ensure that the directors of the 
defense laboratories are provided the full range of personnel 
flexibilities and authorities provided by Congress?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense for Acquisition, Technology and Logistics and the Department 
components to ensure the directors of defense laboratories are provided 
the full range of personnel flexibilities and authorities provided by 
Congress.
                 dod scientific and technical personnel
    Question. Recently, the Department issued guidance, as part of its 
efficiencies initiatives, to centralize certain hiring authorities, 
including for highly-qualified experts and Inter-Governmental Personnel 
Assignment (IPA) positions. Both are heavily used by the Department's 
scientific and technical (S&T) enterprise, including the DOD's 
laboratories and the Defense Advanced Research Projects Agency (DARPA). 
The benefit of these authorities is to use them to make rapid hiring 
decisions for individuals in a highly competitive national S&T jobs 
market. However, there is concern that the centralization of the 
process will actually slow down the Services' and defense agencies' 
ability to hire rapidly.
    What will you do to ensure that these special hiring authorities 
are not negatively impacted in terms of allowing DOD to rapidly hire 
these types of highly specialized individuals?
    Answer. If confirmed, I would ensure that the Department actively 
engages in initiatives to streamline and reform the civilian hiring 
system, to include efforts to ensure that the Department's processes 
for using special hiring authorities are efficient in fulfilling DOD's 
mission needs.
    Question. Under the Military Accessions Vital to National Interest 
(MAVNI) program, the Department is able to expedite U.S. citizenship 
for foreign nationals that enlist in the military and have either 
specialized medical or linguistic skills.
    How could this program be extended to include, subject to 
appropriate security reviews, highly skilled scientific and technical 
foreign nationals--e.g., graduates of U.S. universities with doctorates 
in fields the DOD has a demand for and where less than half of these 
graduates are U.S. citizens?
    Answer. Although new enlistees under the MAVNI program are eligible 
for expedited naturalization under the provisions of section 1440, 
title 8, U.S.C., the MAVNI Pilot Program was designed to meet critical 
military readiness needs in the Armed Forces by using the provisions of 
section 504(b)(2), title 10, U.S.C. to enlist certain legal non-
immigrants.
    Currently, the Services have identified and scoped the program for 
fully-qualified health professional in critical medical skills and 
individuals with heritage-level language abilities and cultural 
backgrounds in a specific set of languages critical to current and 
emerging readiness needs.
    Although the need for scientific and technical skills has been 
identified as a shortage in civilian requirements, expanding MAVNI to 
fill civilian needs would not meet the intent or the language of the 
statutory provisions under which MAVNI operates.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Personnel and Readiness?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                          simulation training
    1. Senator Nelson. Mr. Vollrath, as the defense budget shrinks, 
simulation technology is a way troops can remain war ready. Simulation 
training--available for a wide variety of weapons systems and crew 
positions--is not only cost effective, but reduces the wear and tear on 
military hardware. As fiscal constraints reduce live exercises and 
training opportunities, can mobility and simulation be relied upon to a 
greater extent?
    Mr. Vollrath. Modeling and simulation (M&S) supported training 
certainly presents an opportunity to mitigate live training costs and 
is presently being used by all Services to supplement/support live 
training. The Department of Defense has conducted a study of relevant 
factors to determine what types of military training are best suited 
for M&S supported training. In making this decision, some factors that 
must be considered include: individual or collective task; learning 
complexity; interaction/fidelity; maturity of technology; and task 
domain (procedural, affective, psychomotor, or cognitive). Finally, the 
total life cycle costs of live training as compared to M&S supported 
training must also be evaluated and compared for each training task. In 
general, the study concluded that given current technologies, training 
tasks that are procedural, rote, and individual or of low to medium 
complexity can be performed very cost effectively with M&S supported 
capabilities. As always, the Department will leverage and further 
explore any and all ways to cost effectively prepare our Nation's force 
for military operations.

                           military readiness
    2. Senator Nelson. Mr. Vollrath, readiness is already impacted by 
sequestration. The Florida Air National Guard has reduced their flying 
hours by 57 percent, impacting the ability for pilots to remain current 
and qualified. The 125th Fighter Wing in Jacksonville provides air 
dominance for the southeastern United States. Can you speak to the 
downsides of establishing tiered readiness levels for our combat units, 
such as the 125th Fighter Wing?
    Mr. Vollrath. The Services must be resourced to provide enough 
ready units when the Nation needs them. Each Service has force 
generation functions to produce ready units/capabilities. They 
recognize the realities of how long it takes to generate ready units/
capabilities (and keep them ready) as well as the particulars of the 
demand signal from our combatant commanders. Many units/capabilities 
aren't required in large numbers or on an immediate timeline, and in 
those cases, building rotational force generation models (i.e. 
``tiering'') makes perfect sense. What is harmful is when it isn't the 
demand signal that shapes the ``tiering'', but a shortage of resources. 
My concern is this will result in an inadequate supply of ready forces 
when the need arises, and/or the inability to restore the readiness of 
forces to meet required timelines.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                             mental health
    3. Senator McCaskill. Mr. Vollrath, the Armed Forces Health 
Surveillance Center recently conducted a study that found pilots of 
drone aircraft experience mental health problems like depression, 
anxiety, and post-traumatic stress at the same rate as pilots of manned 
aircraft who are deployed to Iraq or Afghanistan. Air Force officials 
and independent experts have suggested several potential causes, among 
them witnessing combat violence on live video feeds, working in 
isolation or under inflexible shift hours, juggling the simultaneous 
demands of home life with combat operations, and dealing with intense 
stress because of crew shortages.
    The Air Force also conducted research into the health issues of 
drone crew members. In a 2011 survey of nearly 840 drone operators, it 
found that 46 percent of Reaper and Predator pilots, and 48 percent of 
Global Hawk sensor operators, reported ``high operational stress''. 
Those crews cited long hours and frequent shift changes as major 
causes. That study found the stress among drone operators to be much 
higher than that reported by Air Force members in logistics or support 
jobs. But it did not compare the stress levels of the drone operators 
with those of traditional pilots.
    The new study looked at the electronic health records of 709 drone 
pilots and 5,256 manned aircraft pilots between October 2003 and 
December 2011. Those records included information about clinical 
diagnoses by medical professionals and not just self-reported symptoms. 
The study found that pilots of both manned and unmanned aircraft had 
lower rates of mental health problems than other Air Force personnel. 
Clearly this is a readiness issue, with the contradiction in the 
findings of those two studies, do you think we have a clear picture of 
the mental health needs of our pilots?
    Mr. Vollrath. After consulting with the Office of the Assistant 
Secretary of Defense for Health Affairs, it is clear that the 
Department's understanding of this issue is constantly improving. It is 
important to note that rates of formally diagnosed PTSD in Air Force 
pilots have remained low. Despite many years at war and an increasing 
reliance on remotely piloted aircraft, PTSD rates in all pilots as a 
group remain lower (at about two per thousand) than many other career 
groups, such as airmen in ``outside the wire'' combat missions (e.g., 
security forces or explosive ordnance disposal staff) or others with 
direct exposure to the dead or dying, such as medical personnel.
    Even though rates of formal diagnosis of PTSD have remained low, we 
are aware that pilots experience stress. Pilots with traditional combat 
exposure or those who visualize battle remotely can be at risk for 
combat stress or PTSD. Since 2009, line leaders and the USAF School of 
Aerospace Medicine (USAFSAM) have monitored closely our RPA and 
intelligence career fields. Through a series of surveys and interviews 
USAFSAM continues to gather information, expand research, and provide 
recommendations to leaders and providers, and to inform aeromedical 
policy. Future studies will seek to compare RPA teams with other high 
tempo teams such as aeromedical and C-17 missions. Finally, stepping 
forward to help meet the needs of the growing remotely piloted mission, 
the Air Force dedicated several additional mental health providers to 
RPA and intelligence units. In concert with flight medicine physicians, 
chaplains, and commanders, they will assist Air Force leaders and 
supervisors in comprehensive support of these valued teams.

    4. Senator McCaskill. Mr. Vollrath, do you believe there is any 
pressure among both manned and unmanned aircraft pilots not to report 
mental health symptoms to doctors out of fears that they will be 
grounded?
    Mr. Vollrath. I consulted with the Office of the Assistant 
Secretary of Defense for Health Affairs in order to properly respond to 
this question. That aircrew (whether from manned or unmanned airframes) 
may not fully disclose mental health problems to physicians due to 
fears of being grounded is a phenomenon that is not unique to aircrew, 
nor to non-rated servicemembers with mental health problems. Military 
members are reluctant to report any condition that they think may 
adversely impact their duty or retention status. This is particularly 
true of aviators who must meet more restrictive standards, whose 
special pay is attached to their operational readiness, and whose 
competition for promotion may be affected by an untimely and prolonged 
``Duties Not Involving Flying'' period. It is a finding that military 
leadership has often encountered across the Services and myriad of 
career fields.
    DOD health care utilization rates are not the most reliable form of 
identifying mental health issues within military populations, including 
RPA operators. Relying on self-disclosure to estimate true prevalence 
rates has known methodological limitations. Research has shown higher 
rates of self-disclosure of symptoms in the pilot community using 
anonymous surveys rather than annual web-based health assessments. 
Additionally, placement of operational psychologists embedded within 
flight medicine and operational units facilitates interaction and 
disclosure of problems among RPA pilots. The Air Force implemented this 
initiative in 2011 and continues to increase the placements of 
operational psychologists across the Air Force.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                       child development centers
    5. Senator Inhofe. Mr. Vollrath, allegations of child abuse at the 
Fort Myer Child Development Center (CDC) in December prompted the 
Secretary of Defense to order the Services to fully investigate all CDC 
activities and to provide reports to him by January 21, 2013. The audit 
revealed areas for improvement. Last week, we learned that the Fort 
Myer CDC has lost its accreditation. When will Congress be provided the 
findings of DOD's audit of CDCs?
    Mr. Vollrath. At this time, the Office of the Secretary of Defense 
has not indicated that the report is available for release. It will be 
made available to Congress as soon as it is approved for release by the 
Secretary of Defense. The Services and OSD are addressing identified 
areas of improvement at the DOD and Military Service level. The Fort 
Myer Child Development Center National Association for the Education of 
Young Children (NAEYC) accreditation was revoked. NAEYC procedures 
require revocation if a required standard is not met.

    6. Senator Inhofe. Mr. Vollrath, what improvements will DOD make to 
ensure that young children are protected from abuse when receiving care 
in CDCs?
    Mr. Vollrath. DOD and the Military Services are committed to 
providing a safe environment for the 200,000 children that we provide 
care for on a daily basis. We are revising the current Department of 
Defense Instruction (DODI) which covers background checks for any 
individuals who have contact with children on a regular basis 
(including child care workers, volunteer coaches, youth recreation 
employees, et cetera). While the existing DODI met the requirements of 
current legislation, the audit ordered by the Secretary of Defense 
identified areas that could be improved upon and we are focusing on 
making these changes.

               spouse education and career opportunities
    7. Senator Inhofe. Mr. Vollrath, how many spouses have been helped, 
and how many still need help from Spouse Education and Career 
Opportunities (SECO) programs?
    Mr. Vollrath. In fiscal year 2012, the SECO program provided career 
and education counseling for more than 132,000 spouses through the SECO 
Career Center; provided more than 36,000 military spouses with 
scholarships for job training, licensing and certificates through the 
My Career Advancement Account (MyCAA) scholarship program, and worked 
with 160 private sector companies and organizations to hire more than 
36,000 military spouses. However, more than 1 in 4 (26 percent) 
military spouses in the labor force are unemployed, which accounts for 
approximately 90,000 spouses. Furthermore, when they are employed, the 
income levels of military spouses often lag behind their civilian 
counterparts. A recent study showed that military wives with full-time 
jobs earned 25 percent less than their civilian counterparts. In light 
of these statistics, we must continue to work to ensure that our 
military spouses are provided the tools, resources, and opportunities 
to contribute to their family's financial stability, resilience, and 
well-being.

    8. Senator Inhofe. Mr. Vollrath, do you believe these programs, as 
currently resourced and executed, are actually helping military spouses 
gain employment opportunities that meet their financial and 
professional stability needs?
    Mr. Vollrath. Yes. The SECO program has been successful because we 
address the comprehensive needs of military spouses throughout their 
career lifecycle. SECO assists them in deciding on a career path, 
provides them information to train and learn in order to access the 
career they have chosen, gives them tools and assistance to embark on 
an effective career search and makes the connection to the employer who 
will value the skills that they bring to the 21st century workforce.

                            healthcare costs
    9. Senator Inhofe. Mr. Vollrath, DOD's personnel and entitlement 
spending represent an ever increasing portion of the DOD budget. 
Healthcare spending is a big driver of increased costs. DOD's health 
care budget has increased from about $19 billion in fiscal year 2001 to 
about $52 billion in fiscal year 2013. Healthcare represents about 10.2 
percent of DOD's topline. In the NDAA for Fiscal Year 2013, Congress 
established the Military Compensation and Retirement Modernization 
Commission to study and make recommendations on compensation and 
retirement reform. Should this Commission consider the impact of 
healthcare costs as it develops its recommendations on compensation and 
retirement reform?
    Mr. Vollrath. Yes, the Department believes the Commission should 
consider the impact of healthcare costs as it develops recommendations 
on modernizing the military compensation and retirement systems. For 
its part, health and dental care are among the areas currently under 
review by the Department as it develops modernization recommendations 
for the Secretary to transmit to the Commission.

    10. Senator Inhofe. Mr. Vollrath, how can DOD better control the 
cost of healthcare of servicemembers as they move through the 
accession-to-retirement continuum and beyond?
    Mr. Vollrath. Although health care is not within the purview of the 
Assistant Secretary of Defense for Readiness and Force Management, I 
have consulted with the Office of the Assistant Secretary of Defense 
for Health Affairs in order to properly respond to this question. 
Controlling health care costs is a complex problem that will require a 
complementary approach to solving. The Military Health System advocates 
four simultaneous actions to reduce costs: (1) internal efficiencies to 
better organize our decisionmaking and execution arm; (2) a 
continuation of efforts to appropriately pay private sector providers; 
(3) initiatives that promote health, reduce illness, injury and 
hospitalization; and (4) proposed changes to beneficiary cost-sharing 
under TRICARE.

    dod review of same sex spouse benefits and impact of defense of 
                              marriage act
    11. Senator Inhofe. Mr. Vollrath, recently, the Secretary of 
Defense announced the intent to provide additional benefits to same-sex 
domestic partners who declare a committed relationship, but not to 
unmarried heterosexual domestic partners. What is the legal and policy 
rationale for DOD to favor same-sex partners over heterosexual partners 
in offering these benefits?
    Mr. Vollrath. Heterosexual couples, if they so choose, have the 
opportunity in every State to get married, and their marriage is 
recognized in Federal law. Currently, same-sex couples do not have this 
opportunity (per the Defense of Marriage Act (DOMA), we can only 
recognize marriage between a man and a woman). Thus, same-sex couples 
and opposite-sex couples are not similarly protected under the law. The 
benefits extended are a significant effort to close the gap in equity 
for benefits, consistent with current law.

    12. Senator Inhofe. Mr. Vollrath, has DOD considered the potential 
for litigation by heterosexuals, who are not married but who are also 
in a committed relationship, who believe they are being denied equal 
treatment?
    Mr. Vollrath. Same-sex and opposite-sex couples are not similarly 
situated. Opposite-sex couples can get married in any State, the 
District of Columbia, or U.S. territory, and their marriage is 
recognized under Federal law. Currently, same-sex couples do not have 
this same opportunity (per DOMA, we can only recognize marriage between 
one man and one woman). Thus, the two categories of couples are not 
similarly situated under the law.

    13. Senator Inhofe. Mr. Vollrath, what will be the increased costs 
associated with extending benefits to the same sex spouses of military 
members during a time when this administration has imposed drastic 
budget cuts to DOD?
    Mr. Vollrath. The cost of extending benefits to same-sex domestic 
partners of military members is negligible. Many of the benefits 
selected for extension are self-sustaining programs designed to 
accommodate fluctuations in need and population, such as commissary and 
exchange privileges and MWR programs. Other benefits, such as dual 
military spouse assignments and emergency leave, are provided to the 
servicemember regardless of relationship status therefore there is no 
additional cost anticipated.

                            women in combat
    14. Senator Inhofe. Mr. Vollrath, I am concerned about the 
potential adverse impacts to readiness resulting from Secretary of 
Defense Panetta's announcement to rescind the 1994 rule that prohibits 
women from being assigned to smaller ground combat units, and his plan 
to potentially open more than 230,000 combat positions to women. DOD is 
pursuing this major policy change during a time when every branch of 
the Armed Forces has consistently met recruitment goals, is attracting 
and retaining high quality and skilled personnel at record rates and, 
recently, requested Congress to authorize the Army and Marine Corps to 
reduce end strength by 100,000 ground troops over the next 4 years. 
What compelling national security interest is advanced by opening up 
more positions to women at this time?
    Mr. Vollrath. It is the in best interest of national security to 
have the best and brightest person serving in any position based upon 
their abilities, qualifications, and guiding principles developed by 
the Joint Chiefs of Staff. This is consistent with our values and 
enhances military readiness.

    15. Senator Inhofe. Mr. Vollrath, what assurance can you provide 
that decisions to open positions and units to women will be based on 
bona fide military requirements, and will not result in needlessly 
exposing any American servicemember, men or women, to more risk of 
death or serious injury, than is absolutely required by military 
necessity?
    Mr. Vollrath. The decision to open positions to all qualified 
personnel enhances military readiness. The Department can ill afford to 
arbitrarily reduce the pool of qualified personnel based on gender. As 
a result, it is in the best interest of the Department to allow both 
men and women who meet the standards for these positions to compete for 
them.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                      end strength in the services
    16. Senator Ayotte. Mr. Vollrath, in your responses to the advance 
policy questions you discuss end strength reductions that are being 
implemented between now and 2017. You correctly highlight the 
importance that we keep faith with our troops. In the NDAA for Fiscal 
Year 2013, I was able to include a provision (section 525) that 
requires the secretary of each Military Department to report to 
Congress regarding troops that were involuntarily separated from the 
military. I am especially concerned about the Army. The Army has 
testified in the past that it may have to issue thousands of 
involuntary separations to achieve its end strength reductions. I 
believe it would be breaking faith with our troops if we welcome home 
well-performing troops by handing them a pink slip. Do you agree?
    Mr. Vollrath. It is the Department policy that voluntary separation 
authorities be used to the maximum extent possible prior to using 
involuntary measures to reduce the force. Indeed, that is the best way 
to keep faith with our troops. However, we also realize there are 
circumstances that may preclude Services from using voluntary measures.

    1.  Voluntary separation incentives can drive up costs; the 
Secretaries of the Military Departments have to balance these costs 
with the need to maintain mission readiness. Voluntary separation 
incentives may not be sufficient to properly shape the force.
    2.  Involuntary separations may be necessary for the Services to 
properly shape their forces and to allow selectivity when drawing down 
the size of our forces. As we draw down it is imperative that we retain 
those that the Department will need in the future.
    3.  The military is the most respected profession in the United 
States. Strong retention numbers demonstrate that many of our members 
love what they do and want to continue serving as long as possible.

    17. Senator Ayotte. Mr. Vollrath, do you commit to ensuring the 
Services honor the reporting requirements in section 525?
    Mr. Vollrath. Yes. If confirmed, I will ensure we fully comply with 
the reporting requirements of section 525.

    18. Senator Ayotte. Mr. Vollrath, will you make every effort to 
avoid the use of involuntary separations as we reduce the size of our 
force?
    Mr. Vollrath. If confirmed, I will make every effort to minimize 
the use of involuntary separations. However, we should all be cognizant 
of the fact that involuntary separations will be necessary to ensure 
the military is postured correctly for mission readiness and to meet 
all national security objectives.

    19. Senator Ayotte. Mr. Vollrath, what assistance or additional 
authorities do you need to achieve this goal?
    Mr. Vollrath. The Department is requesting additional authority for 
the Secretary of Defense to have the flexibility to reduce the 
mandatory retirement point (for years of service) for lieutenant 
colonels and Navy commanders from 28 years of Active commissioned 
service to 25 years; and for colonels and Navy captains from 30 years 
of Active commissioned service to 27 years.

                         utilizing the reserves
    20. Senator Ayotte. Mr. Vollrath, in your responses to the advance 
policy questions, you write: ``In a constrained resource environment, 
the Reserve component gives the Department a unique opportunity to 
preserve overall operational capability and mitigate risk at reduced 
cost.'' Do you agree that the Reserve component can provide comparable 
operational capability at a reduced cost?
    Mr. Vollrath. I believe the last 10 years have proven the Reserve 
component can provide comparable operational capability. The current 
budget environment provides an opportunity to examine ways in which the 
Reserve component may offer the Services an effective way to preserve 
capability and capacity, within manageable risk. Each Service should 
review their roles and missions and determine the appropriate AC/RC mix 
within their respective organization. This review should include 
factors such as the capabilities required by the combatant commanders 
and the associated timelines, pay, operating costs, time to train, and 
levels of proficiency.

    21. Senator Ayotte. Mr. Vollrath, based on declining defense 
resources, do you agree that we should be increasing, not decreasing, 
our reliance on the Reserve component?
    Mr. Vollrath. Over the last 10 years, we've seen that the Reserve 
component can be a very capable resource. However, getting the right 
balance of capabilities across the components is important and should 
be a direct function of the demand signal from our combatant commanders 
as well as the comparative advantage of each component to produce and 
retain those capabilities. We know from past experience that if the 
Reserve component is not properly funded, it will atrophy resulting in 
recovery timelines that are long and expensive. Getting the right 
balance between our AC/RC components is important, particularly as we 
adjust to reduced resources.

    22. Senator Ayotte. Mr. Vollrath, are there any roles and missions 
that we should increasingly shift from the Active component to the 
Reserve component?
    Mr. Vollrath. Our current fiscal environment, recent legislation 
passed by Congress in the 2012 National Defense Authorization Act 
(NDAA), plus our new defense strategy offers us a unique opportunity to 
shape our future forces. Getting the right balance of capabilities 
across the components is important and should reflect the demand signal 
from our combatant commanders as well as the comparative advantage of 
each component to produce and retain those capabilities. There may be 
current roles and missions that reside in the active component that 
could shift to the Reserve and vice versa. As we work the Quadrennial 
Defense Review, the Services will take this opportunity to shape their 
force mix to maintain the most capability and capacity while mitigating 
risk.
                                 ______
                                 
               Questions Submitted by Senator Mike S. Lee
                                biofuels
    23. Senator Lee. Mr. Vollrath, in 2012, the Navy undertook the 
expensive ``Great Green Fleet'' demonstration, purchasing 450,000 
gallons of biofuel at $26 a gallon for a total of $12 million spent on 
fuel for just one demonstration. The Air Force similarly spent $639,000 
on 11,000 gallons of biofuels for a demonstration in 2012, costing the 
taxpayer $59 per gallon. With the prospect of sequestration and a much 
tighter defense budget in coming years, do you believe that the 
military should continue such large-scale demonstrations using 
biofuels? Please provide a yes or no answer, and if answering yes, 
please provide a justification as to why programs involving biofuels 
should be prioritized over other research and development programs.
    Mr. Vollrath. As this issue is outside of the purview of the 
Assistant Secretary of Defense for Readiness and Force Management, I 
defer to my colleagues Mr. Estevez and Mr. Fanning to respond to this 
question.

                       future acquisition process
    24. Senator Lee. Mr. Vollrath, with the prospect of sequester cuts 
to DOD this year and continuing cuts through the next 9 fiscal years, 
we must change the way that acquisitions are conducted in order to be 
more efficient and cost effective. Necessary acquisitions, such as our 
next generation fighter jet, have been plagued by delays and budget 
overruns. What lessons have been learned so far from the F-35 program 
that you will implement in future acquisitions?
    Mr. Vollrath. As this issue is outside of the purview of the 
Assistant Secretary of Defense for Readiness and Force Management, I 
defer to my colleagues Mr. Estevez and Mr. Fanning to respond to this 
question.
                                 ______
                                 
    [The nomination reference of Mr. Frederick E. Vollrath 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 22, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Frederick Vollrath, of Virginia, to be an Assistant Secretary of 
Defense. (New Position).
                                 ______
                                 
    [The biographical sketch of Mr. Frederick E. Vollrath, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
              Biographical Sketch of Frederick E. Vollrath
Education:
    University of Miami

        <bullet> 1958-1962 - Bachelor of Business Administration in 
        Management awarded 1962

    Central Michigan University

        <bullet> 1975-1976 - Master of Arts in Personnel Management 
        awarded 1976
Employment record:
    Principal Deputy Assistant Secretary of Defense for Readiness and 
Force Management - 2012-present
    Computer Sciences Corporation - 1999-2006

        <bullet> Corporate Vice President of Human Resources

    U.S. Army - 1963-1998

        <bullet> Human Resources Management Command
        <bullet> Deputy Chief of Staff for Personnel (G-1)
        <bullet> Retired as Lieutenant General in 1998
Honors and awards:
    Distinguished Service Medal
    Legion of Merit
    Bronze Star
    Meritorious Service Medal
    Army Commendation Medal
    Adjutant General Corps Regimental Hall of Fame
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. Frederick 
E. Vollrath in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Frederick Emil Vollrath.

    2. Position to which nominated:
    Assistant Secretary of Defense for Readiness and Force Management.

    3. Date of nomination:
    January 22, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 16, 1940; Miami Beach, FL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Joy Pollock Vollrath.

    7. Names and ages of children:
    Forrest Vollrath, 48 years.
    Hans Vollrath, 46 years.
    Mark Vollrath, 39 years.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Coral Gables High School, HS Diploma, 1954-1958.
    University of Miami, Coral Gables, FL, Bachelor Business 
Administration, 1958-1962.
    Central Michigan University, Mount Pleasant, MI, Master of Arts, 
Personnel Management, 1976.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Principal Deputy Assistant Secretary of Defense (Readiness and 
Force Management)
    Retired, Lorton, VA, January 2006-March 2012.
    Corporate Vice President Human Resources, Computer Sciences 
Corporation, El Segundo, CA, February 1999-December 2005.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    U.S. Army, May 1963-October 1998

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Society of Human Resource Management, Member, Alexandria, VA.
    Kappa Sigma Fraternity, Member, Charlottesville, VA.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Hillary Clinton for President, $2,200.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Distinguished Service Medal
    Legion of Merit
    Bronze Star
    Meritorious Service Medal
    Army Commendation Medal
    Adjutant General Corps Regimental Hall of Fame

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17.Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             Frederick E. Vollrath.
    This 21st day of February, 2013.

    [The nomination of Mr. Frederick E. Vollrath was reported 
to the Senate by Chairman Levin on March 20, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 18, 2013.]
                              ----------                              

    [Prepared questions submitted to Mr. Eric K. Fanning by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater Nichols Act 
provisions?
    Answer. Not currently. I agree with the goals of those defense 
reforms; they remain essential to the effective employment of our 
Nation's Armed Forces. Most importantly, they have yielded a 
demonstrated improvement in the joint warfighting capabilities of the 
U.S. military.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I have no suggestions for modifications to the Goldwater-
Nichols legislation. Should I identify areas that merit reform, I will 
propose those changes through the appropriate established process.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. If confirmed, I will bring more than 2 decades of broad 
experience in national security policy and programs as well as 
management to this position. From research assistant on the House Armed 
Services Committee, to Senior Vice President for Strategic Development 
at Business Executives for National Security, to my current position as 
the Deputy Under Secretary of the Navy, I have examined national 
security challenges from many perspectives. I have worked closely with 
the other Military Services, the national security interagency 
community, and Members of Congress to help make the right decisions for 
our Nation's defense. I have also grappled with tough trade-offs among 
programs in a fiscally-constrained environment and have considered the 
implications of changes in defense law and policy. If confirmed, I 
believe these skills and my experience can benefit the Air Force and 
the broader Department of Defense (DOD).
                                 duties
    Question. Section 8015 of title 10, U.S.C., states the Under 
Secretary of the Air Force shall perform such duties and exercise such 
powers as the Secretary of the Air Force may prescribe.
    What is your understanding of the duties and functions of the Under 
Secretary of the Air Force?
    Answer. The position of the Under Secretary of the Air Force is 
established by law within the Office of the Secretary of the Air Force. 
Subject to the Secretary of the Air Force's direction and control, the 
Under Secretary exercises the full authority of the Secretary to 
conduct the affairs of the Department of the Air Force (except as 
limited by law, regulation or limitations imposed by DOD or the 
Secretary of the Air Force). The Under Secretary also serves as the 
Chief Management Officer of the Air Force, the senior energy official, 
and the focal point for space at the Air Force headquarters.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Under Secretary of the Air Force, as 
set forth in section 8015 of title 10, U.S.C., or in DOD regulations 
pertaining to functions of the Under Secretary of the Air Force?
    Answer. At this time, I am unaware of any reason to change the 
duties and functions of the Under Secretary as set out in title 10 and 
pertinent DOD regulations. If I am confirmed and I identify areas that 
I believe merit changes, I will propose those changes through the 
appropriate established processes.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect will be prescribed for you?
    Answer. If confirmed, I look forward to working with the Secretary 
of the Air Force to further his vision and goals for the Air Force. I 
expect the Secretary to prescribe duties for me relating to the Under 
Secretary of the Air Force's responsibilities, particularly in the role 
of Chief Management Officer.
    Question. Section 904(b) of the National Defense Authorization Act 
for Fiscal Year 2008, directs the Secretary of a Military Department to 
designate the Under Secretary of such Military Department to assume the 
primary management responsibility for business operations.
    What is your understanding of the business operations 
responsibilities of the Under Secretary of the Air Force?
    Answer. It is my understanding that the business operations 
responsibilities of the Chief Management Officer, consistent with 
section 904 of the National Defense Authorization Act for Fiscal Year 
2008, include the following: ensuring the Air Force's capability to 
carry out DOD's strategic plan in support of national security 
objectives; ensuring the core business missions of the Department of 
the Air Force are optimally aligned to support the Department's 
warfighting mission; establishing performance goals and measures for 
improving and evaluating overall economy, efficiency, and effectiveness 
and monitoring and measuring this progress; and working with DOD's 
Chief Management Officer to develop and maintain a strategic plan for 
business reform.
                             relationships
    Question. If confirmed, what would be your working relationship 
with:
    The Secretary of Defense.
    Answer. The Secretary of Defense serves as the principal assistant 
to the President on all DOD matters. The Secretary of the Air Force is 
subject to the authority, direction and control of the Secretary of 
Defense and the Under Secretary of the Air Force works for the 
Secretary of the Air Force. The Under Secretary also serves as the 
Chief Management Officer of the Air Force, the senior energy official, 
and the focal point for space at the Air Force headquarters. As the 
focal point of space for the Air Force, the Under Secretary coordinates 
all of the space functions and activities across the Air Force, and is 
the primary interface to the Office of the Secretary of Defense for 
space matters. If confirmed, I would look forward to working closely 
with the Secretary of Defense and his office on space-related matters, 
energy issues, and other matters as directed by the Secretary of the 
Air Force.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense assists the Secretary of 
Defense in carrying out his duties and responsibilities and performs 
those duties assigned by the Secretary of Defense or by law. If 
confirmed, I will work closely with the Deputy Secretary of Defense on 
a range of matters. In particular, I would look forward to working with 
and supporting the Deputy Secretary of Defense in his role as Chief 
Management Officer of DOD.
    Question. The Deputy Chief Management Officer of the Department of 
Defense.
    Answer. The Deputy Chief Management Officer (DCMO) is the principal 
staff assistant and advisor to the Secretary of Defense and Deputy 
Secretary of Defense for matters relating to the management and 
improvement of integrated DOD business operations. In this role the 
DCMO is charged with leading the synchronization, integration, and 
coordination of the disparate business activities of the Department to 
ensure optimal alignment in support of the warfighting mission. If 
confirmed, I look forward to building on my close working relationship 
with the DCMO in my new capacity as the Air Force Chief Management 
Officer.
    Question. The Director of the Business Transformation Agency.
    Answer. This office no longer exists.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I will work closely with the 
Chairman through the Chief of Staff of the Air Force on appropriate 
matters affecting the Air Force.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman has the same statutory authorities and 
obligations of other members of the Joint Chiefs of Staff. When 
performing duties as the acting Chairman, the Vice Chairman's 
relationship with the combatant commanders is exactly the same as that 
of the Chairman. If confirmed, I will work closely with the Vice 
Chairman through the Chief of Staff of the Air Force on appropriate 
matters affecting the Air Force.
    Question. The Secretary of the Air Force.
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the Secretary of the Air Force is responsible for 
and has the authority necessary to conduct all affairs of the 
Department of the Air Force. The Under Secretary of the Air Force is 
subject to the authority, direction, and control of the Secretary of 
the Air Force. If confirmed, I expect the Secretary to assign me a wide 
range of duties and responsibilities involving, but not limited to, 
organizing, supplying, equipping, training, maintaining, and 
administering the Air Force. I look forward to working closely with the 
Secretary as his deputy and principal assistant.
    Question. The Chief of Staff of the Air Force.
    Answer. The Chief of Staff of the Air Force is directly responsible 
to the Secretary of the Air Force and performs duties subject to his 
authority, direction, and control. For the Secretary of the Air Force, 
the Chief of Staff is responsible for providing properly organized, 
trained, and equipped forces to support the combatant commanders in 
their mission accomplishment. The Chief of Staff oversees members and 
organizations across the Air Force, advising the Secretary on plans and 
recommendations, and, acting as an agent of the Secretary, implementing 
plans upon approval. If confirmed, I would foster a close working 
relationship with the Chief of Staff to ensure that policies and 
resources are appropriate to meet the needs of the Air Force and 
respect his additional responsibilities as a member of the Joint Chiefs 
of Staff.
    Question. The Assistant Secretaries of the Air Force.
    Answer. The Assistant Secretaries of the Air Force carry out the 
goals and priorities of the Air Force. If confirmed, I will assist the 
Secretary in building a strong team through close relationships and 
information sharing, and I look forward to working with the Assistant 
Secretaries to further the Secretary's vision.
    Question. The General Counsel of the Air Force.
    Answer. The General Counsel (GC) is the senior civilian legal 
advisor to Air Force senior leaders and all officers and agencies of 
the Department of the Air Force. The GC serves as the chief ethics 
official. If confirmed, I look forward to developing a strong working 
relationship with the GC and his staff.
    Question. The Inspector General of the Air Force.
    Answer. The Inspector General (IG) of the Air Force is a general 
officer who is detailed to the position by the Secretary of the Air 
Force. When directed, the IG inquires into and reports on matters 
affecting the discipline, efficiency, and economy of the Air Force. He 
also proposes programs of inspections and investigations as 
appropriate. If confirmed, I would look forward to developing a good 
working relationship with the IG.
    Question. The Surgeon General of the Air Force.
    Answer. The Surgeon General (SG) of the Air Force is the functional 
manager of the Air Force Medical Service and provides direction, 
guidance, and technical management of Air Force medical personnel at 
facilities worldwide. The SG advises the Secretary of the Air Force and 
Air Force Chief of Staff, as well as the Assistant Secretary of Defense 
for Health Affairs, on matters pertaining to the medical aspects of the 
air expeditionary force and the health of Air Force personnel. If 
confirmed, I would look forward to developing a good working 
relationship with the SG.
    Question. The Air Force Business Transformation Office.
    Answer. The Air Force Business Transformation Office is responsible 
for assisting the Under Secretary of the Air Force in performing the 
duties of Air Force Chief Management Officer as they relate to 
improving the effectiveness and efficiency of Air Force business 
operations. The Air Force Deputy Chief Management Officer has been 
designated as the Director of the Air Force Business Transformation 
Office. The office advises Air Force senior leadership on establishment 
of strategic performance goals, management of Air Force-wide cross 
functional activities to meet those goals, and implementation of 
continuous process improvement initiatives. If confirmed, I anticipate 
a very active and involved role with the Air Force Business 
Transformation Office on matters affecting the Air Force-wide business 
operations.
    Question. The Judge Advocate General of the Air Force.
    Answer. The Judge Advocate General (TJAG) is the senior uniformed 
legal advisor to Air Force senior leaders and all officers and agencies 
of the Department of the Air Force and provides professional 
supervision to TJAG's Corps in the performance of their duties. If 
confirmed, I will look forward to developing a good working 
relationship with TJAG and the TJAG staff.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard Bureau is the senior 
uniformed National Guard officer responsible for formulating, 
developing, and coordinating all policies, programs, and plans 
affecting Army and Air National Guard personnel, and is also a member 
of the Joint Chiefs of Staff. Appointed by the President, he serves as 
principal adviser to the Secretary of Defense through the Chairman of 
the Joint Chiefs of Staff on National Guard matters. He is also the 
principal adviser to the Secretary and Chief of Staff of the Air Force 
on all National Guard issues and serves as the Department's official 
channel of communication with the governors and adjutants general. If 
confirmed, I will look forward to developing a good working 
relationship with the chief of the National Guard Bureau on appropriate 
matters affecting the Air Force.
    Question. The Under Secretaries of the Military Services.
    Answer. If I am confirmed, I will work diligently to foster a close 
working relationship with the Under Secretaries of the Army and Navy. I 
look forward to sharing information and expertise that will assist in 
the management of the Department of the Air Force and our coordination 
with the other Services on matters of mutual interest, particularly in 
our capacities as Chief Management Officers for our respective 
Services.
                    major challenges and priorities
    Question. In your view, what are the major challenges, if any, that 
you would confront if confirmed as Under Secretary of the Air Force?
    Answer. This is a time of great challenge for the Air Force, DOD, 
and the Nation. The security environment is one where the pace of 
change is rapid. We live in a world where individual acts are powerful 
and the effects of these acts can be global. This requires a resilient, 
flexible, and responsive force ready to answer the Nation's call.
    Force structure choices are difficult, especially under current 
fiscal conditions. But the Air Force, like all of the Services, must 
continue to maximize each taxpayer dollar to support the joint 
warfighter in today's conflict while ensuring we can prevail in the 
next fight, whatever and wherever it may be. The Air Force must balance 
the need to modernize platforms with the requirement to invest in new 
technologies and capabilities. As we all know, the men and women who 
serve are truly our most valuable asset. So, the Air Force must also 
ensure that it can continue to recruit, train, deploy, and retain 
highly-skilled airmen, and support those airmen and their families. At 
a time of great fiscal uncertainty for our Nation, these challenges 
will continue to pose hard choices for the Service in the years ahead.
    If confirmed, I will work to meet these challenges, especially in 
my role as the Chief Management Officer of the Air Force, by continuing 
to identify efficiencies, ensuring that the Air Force is getting the 
most from its investment of taxpayers' resources. I will also work 
toward more efficient and cost-effective acquisition processes and 
program execution, particularly in the areas of energy and space. I 
look forward to working closely with DOD and Air Force leadership, 
along with this committee, to develop strategies for addressing these 
major challenges facing the Air Force and the Nation.
    Question. If confirmed, how would you prioritize and what plans 
would you have, if any, for addressing these challenges?
    Answer. The Secretary and Chief of Staff of the Air Force have laid 
out clear priorities--continue to strengthen the nuclear enterprise; 
partner with the joint and coalition team to win today's fight; develop 
and care for airmen and their families; modernize air and space 
inventories, organizations, and training; and recapture acquisition 
excellence.
    If confirmed, I look forward to working with senior DOD and Air 
Force leadership, as well as this committee, to ensure that we make the 
right choices for the Air Force and the Nation. All of these priorities 
will require sustained leadership and effort with an eye toward 
ensuring the best support for the warfighter and the wise use of 
taxpayer resources.
                        air force global posture
    Question. The Department of Defense Strategic Guidance issued in 
January 2012 emphasized the Asia-Pacific and Middle East regions while 
still ensuring the U.S. ability to maintain mutual defense commitments 
in Europe. The Strategic Guidance calls for a rebalancing of the U.S. 
military investment in Europe, which will be achieved in part through 
rotational presence at overseas bases in Europe.
    In your view, should we consider making more substantial reductions 
in Air Force force structure in Europe, particularly in view of the 
shift in strategy toward the Asia/Pacific arena?
    Answer. The United States' defense commitments to Europe and our 
role in NATO remain paramount to regional stability and our 
international security interests. Considerations to substantially 
reduce force structure or employ it in new ways within Europe will 
require clear planning with our partners. The Air Force brings unique 
capabilities to Europe as part of a balanced forward presence that 
assures our allies of our commitment and dissuades potential 
adversaries from dangerous action. Additionally, I understand the Air 
Force meets the capability and force-sizing requirements directed by 
the new Defense Strategic Guidance, providing global and adaptable 
forces in the highest priority areas and missions in the Asia-Pacific 
region and the Middle East, while still ensuring our ability to 
maintain our defense commitments to Europe and other allies and 
partners. If confirmed, I will work to ensure we continue to invest in 
collaborative defense programs, which are in the strategic best 
interests of both the United States and our allies. Additionally, if we 
identify redundant capabilities that our partners can provide, we 
should carefully analyze the marginal costs of overseas presence and 
adjust appropriately.
                     management of space activities
    Question. As the Under Secretary of the Air Force, you would have 
an important role in helping the Secretary of the Air Force discharge 
his responsibilities as the Department of Defense Executive Agent for 
Space, in particular, for developing, coordinating, and integrating 
policy, plans and programs for major defense space acquisitions.
    If confirmed, will you be designated as the DOD Executive Agent for 
Space?
    Answer. I do not expect to be designated as the DOD Executive Agent 
for Space. While this role has been delegated in the past, the new DOD 
Directive does not extend the Executive Agent for Space authority.
    Question. If you are designated as the DOD Executive Agent for 
Space, or are otherwise assisting the Secretary of the Air Force in his 
role as Executive Agent, how would you ensure that each of the Military 
Services remains fully engaged in and knowledgeable about space 
programs and the advantages that such programs can bring to the 
warfighter?
    Answer. If confirmed, I do not expect to be designated as the DOD 
Executive Agent for Space. While this role has been delegated in the 
past, the new DOD Directive does not extend the Executive Agent for 
Space authority. However, assisting the Secretary of the Air Force in 
his role as EA for Space, I will foster a close working relationship 
with the Under Secretaries of the Army and Navy, as well as the 
appropriate Under and Assistant Secretaries of Defense and the Defense 
Advanced Research Projects Agency (DARPA), to ensure space acquisition 
planning, programming and budgeting are synchronized to continue to 
deliver the best space capability to the warfighter.
    The responsibilities of the Air Force as the DOD's Executive Agent 
for Space can most successfully be accomplished through close 
coordination with these organizations for the development of space 
policy and the integration of space systems into broader departmental 
efforts.
    Question. What is your view of the relationship of the Under 
Secretary of the Air Force to the Under Secretary of Defense for Policy 
and the Assistant Secretary of Defense for Networks and Information 
Integration with regard to space policy and systems?
    Answer. If confirmed, I will be assigned a wide range of duties and 
responsibilities subject to the authority, direction and control of the 
Secretary of the Air Force. I anticipate being an active participant in 
a number of deliberative bodies which focus on developing, coordinating 
and integrating DOD policy, plans and programs for major defense 
acquisitions. For example, I will co-chair the Air Force Space Board 
and participate in the Defense Space Council as the Air Force 
representative. The perspective gained in these roles will inform my 
vision of the best ways to facilitate unity of effort across the space 
enterprise with the Under Secretary of Defense for Policy and the DOD 
Chief Information Officer, as well as other stakeholders.
    Question. In your view, what are the authorities of the Executive 
Agent for Space regarding: (1) the budgets, programs, and plans of the 
various Service and Defense Agency space programs; and (2) milestone 
decisions for space acquisition programs of the various Services and 
Defense agencies?
    Answer. With respect to planning, budgeting, and programming, I 
view the authorities of the DOD Executive Agent for Space as an 
integration function across the entire Department and space 
communities. If confirmed, I view the synchronization of space budgets 
between the Services and the coordination of space and non-space 
acquisitions as paramount to delivering fully integrated weapon systems 
to the battlefield.
    Currently, the Under Secretary of Defense for Acquisition, 
Technology, and Logistics has milestone decision authority for space 
acquisition programs. If confirmed, I look forward to assisting the 
Under Secretary in managing and delivering space capabilities to the 
warfighter.
    Question. The Government Accountability Office (GAO) has 
consistently pointed to fragmented leadership as a key contributor to 
disconnects in space programs and to acquisition problems. GPS-user 
equipment, for example, lags a decade behind new satellites because of 
disparate acquisition authority. Architectures for critical areas such 
as space situation awareness were slow to develop because of a lack of 
an authority that could pull together and adjudicate the needs of the 
many organizations in the space arena. Large programs have been 
canceled partly because agencies could not agree on requirements or 
work effectively together to provide oversight.
    What do you think your role would be, if confirmed, in bringing 
together the space community versus protecting only the institutional 
interests of the Air Force?
    Answer. If confirmed, I look forward to working closely with 
counterparts in the Office of the Secretary of Defense (OSD), the 
Service Departments and other Defense agencies on space-related issues. 
While the vast majority of space capabilities reside within the Air 
Force, I understand these capabilities exist to support national 
security objectives and the joint warfighter. The office of the Deputy 
Under Secretary (Space) shares a staff with the DOD Executive Agent for 
Space. This office is staffed by all four Services, which ensures a 
multi-Service perspective is brought forth on issues. Additionally, I 
will encourage a strong partnership with OSD and the Service 
Departments utilizing the Defense Space Council and other mechanisms 
for further collaboration, synchronization, and integration across DOD 
space activities.
    If confirmed, I would use the current governance mechanisms to 
actively work with the other members of the Space community; I would 
informally develop relationships with peers outside of the Air Force 
(e.g. NASA, NRO, ODNI): and I would act in a highly collaborative and 
reliable manner with the other members of the Space community
    Question. How would you foster better cooperation and coordination 
with agencies inside and outside the Defense community?
    Answer. If confirmed, I look forward to working with the Secretary 
of the Air Force, the Executive Agent for Space, to further cooperate 
on space activities across the U.S. Government. The National 
Reconnaissance Office is a member of the DSC while the Office of the 
Director of National Intelligence is regularly represented as well. The 
Intelligence Community Space Board also includes several members from 
DOD agencies, including the Defense Intelligence Agency and Office of 
the Under Secretary of Defense for Intelligence, and observers from the 
Office of the Under Secretary of Defense for Policy and the Director of 
the Executive Agent for Space Staff.
    If confirmed, I will also participate in routinely scheduled, 
Executive-level meetings such as those between the Air Force, NASA, and 
the National Reconnaissance Office. The perspective gained in these 
roles will inform my vision of the best ways to facilitate unity of 
effort across the DOD Space enterprise and support the Secretary of the 
Air Force.
    Question. Do you see a need to strengthen the authority of the 
Under Secretary of the Air Force or to establish any new authority to 
ensure better Government-wide coordination for space?
    Answer. At this time, I am unaware of any reason to change the 
authorities assigned to the Under Secretary of the Air Force. Formed 
approximately 2 years ago, the Defense Space Council has had a positive 
impact on Government-wide coordination of space activities. If 
confirmed, I look forward to working closely with the Secretary of the 
Air Force in any capacity to build upon the success of the Defense 
Space Council.
                              space launch
    Question. On May 2, 2005, Boeing and Lockheed Martin announced 
plans to merge the production, engineering, test, and launch operations 
associated with providing Evolved Expendable Launch Vehicle (EELV) 
services to the U.S. Government. The companies believed the merger 
could save $100-150 million per year for the U.S. Government while 
continuing to provide assured access to space. An October 2011 GAO 
report indicated that these cost savings have not materialized and have 
in fact increased due to lack of insight into the costs by the merged 
EELV contractor.
    If confirmed, how would you ensure that the costs of launch are 
contained and transparent to the U.S. Government?
    Answer. The new EELV acquisition strategy with quantity, rate, and 
time commitments, better executive oversight, the emergence of 
competition and better incentive contract types should ensure launch 
costs are contained. If confirmed, I plan to become more familiar with 
these efforts, to evaluate the actual cost savings and other benefits 
of the Air Force strategy.
    Question. Maintaining assured access to launch has been the 
national security goal of the Department of the Air Force.
    In your view is that goal achieved with the EELV vehicles or is 
there a need for alternative launch options by attracting new entrants 
to compete with the current EELV contractor?
    Answer. Assured access to space has been achieved to date by the 
current ULA launch systems in the EELV program. However, both public 
law and policy require the U.S. Government to provide equal opportunity 
for all qualified providers. Commercial space transportation providers 
that have demonstrated their ability to safely and reliably launch 
payloads will be provided the opportunity to compete.
    Question. There has been considerable discussion in the past year 
about the Air Force's plans for a block buy strategy for space launch. 
The high cost of launch, our knowledge about the industrial base, 
uneven agency coordination, and inadequate transparency into cost and 
efficiencies have been significant elements of the debate over this 
upcoming procurement.
    If confirmed, how would you ensure that the Air Force works closely 
with the Administrator of the National Aeronautics and Space 
Administration (NASA) to ensure that DOD has sufficient knowledge of 
the heavy-lift program decisions of the administration to facilitate 
the ability of DOD's ability to negotiate EELV launch contract prices 
in a manner that maximizes investment?
    Answer. If confirmed, I look forward to working with NASA and 
others across the U.S. Government to maximize the Department's 
investment. DOD and NASA collaborate on studies and conduct joint 
meetings to provide insight into each organization's acquisition 
strategy. If confirmed, I will continue to work with NASA to ensure 
full understanding of the bearing NASA program decisions may have on 
sustaining the launch industrial base.
    Question. Do you think that the Air Force's current approach to 
coordination with NASA is sufficient or are changes needed?
    Answer. If confirmed, I look forward to supporting the Secretary's 
efforts to build strong relationships with NASA. The Air Force works 
jointly with both NASA and the NRO on several key areas including the 
acquisition of space launch services and new launch service provider 
entrant criteria.
    I plan to continue engaging with our space launch partners on 
matters regarding the stability of the industrial base, EELV launch 
requirements and competition for DOD launch services. I will continue 
to look for opportunities for improved cooperation and coordination 
while the organizations pursue their respective programs.
    Question. In light of budgetary constraints, can more be done to 
leverage the expertise and resources of both agencies as well as other 
agencies that rely on our national security launch capability, such as 
the National Reconnaissance Office (NRO)?
    Answer. If confirmed, I will evaluate opportunities to leverage 
expertise across agencies with space launch responsibilities while 
bearing in mind that there are many existing collaboration activities 
underway. As an example, the Air Force, NRO, and NASA jointly lead the 
Government Expendable Launch Vehicle Executive Board as a forum for 
interagency communication of acquisition, certification, and 
programmatic launch issues.
    Question. The discussion over the last year highlighted a need for 
a longer term, national strategy for launch--one that optimizes the 
industrial base, enables competition, advances technology, and can 
respond to a need to change the current acquisition paradigm for space.
    What role do you believe the Air Force should play in developing a 
national launch strategy?
    Answer. If confirmed, I will work with the Secretary of the Air 
Force and across the Department to evaluate the need to develop a 
comprehensive national launch strategy. As the DOD's Executive Agent 
for Space, the Air Force has the ability to reach across the Department 
to address DOD space equities and collaborate with external 
stakeholders. If confirmed and requested by the Secretary, I will work 
with our partners to understand the challenges and assess where key 
strategic choices are required.
    Question. How can this strategy leverage the government's buying 
power to assure mission success while minimizing costs?
    Answer. My understanding is that the objective of such a national 
strategy is to establish an environment to ensure a stable, flexible, 
responsive, and appropriately sized U.S. domestic propulsion industrial 
base capable of fulfilling national requirements and commercial market 
demands. I look forward to helping develop and decide on a common 
strategy. A key element to the strategy should be better leveraging the 
government's buying to gain our desired outcomes.
    Question. How can we incentivize contractors to implement 
efficiencies without adversely affecting mission success?
    Answer. If confirmed, I will work with the Secretary of the Air 
Force to ensure mission assurance is maintained as an important 
contributing factor to launch mission success. I have learned that the 
Air Force has taken steps to effectively incentivize ULA to gain 
efficiencies in launch capability without impacting mission assurance 
through its two-pronged approach--a mission success performance 
incentive to ensure focus on mission requirements, and the cost control 
incentive to find efficiencies. Careful consideration will be taken to 
ensure these incentive features of the contract structure are 
appropriately balanced to influence behavior without adversely 
affecting mission success.
    Question. In the near term, what are your plans, if any, to foster 
competition in the launch vehicle industry to ensure DOD pays 
competitive prices?
    Answer. If confirmed, I will work with the Department on the 
implementation of its new acquisition strategy, approved in November 
2012, which authorizes competition for up to 14 missions for New 
Entrants.
    Question. What insight do you plan to have into the progress of new 
commercial launch providers in obtaining a government certification?
    Answer. If confirmed, I plan on seeing the rapid application of the 
Air Force's New Entrant Certification Guide (NECG), to guide the 
evaluation and certification processes for prospective New Entrants. 
Per the NECG, the Air Force formally reviews and approves all 
certification approaches proposed by New Entrants, thereby providing me 
direct insight into any government certifications.
                   military space acquisition policy
    Question. A major issue in space acquisition is the decoupling of 
acquisition schedules between ground terminals and equipment and the 
actual satellite. The result is billions of dollars being spent to 
launch next generation communications, early warning, and GPS systems 
without the capability on the ground to utilize the full suite of 
capabilities on the satellites.
    If confirmed, what will you do to ensure that ground and satellite 
capabilities are synchronized as contemplated in section 911 of the 
National Defense Authorization Act for Fiscal Year 2013?
    Answer. It is my understanding that the deployment of ground and 
satellite capabilities is not always optimally synchronized.
    If confirmed, I plan to address programs from an enterprise 
perspective and improve synchronization of space, control, and user 
segments. I also plan to ensure appropriate resources are allocated and 
to balance the need for early development with the appropriate timeline 
for fielding.
    Question. For several years, the Air Force has proposed a multi-
year procurement approach for its largest satellite programs. This 
would have an advantage of stabilizing cost and enabling efficiencies, 
but there is also a risk of locking in a strategy that may not be 
suited for the decades ahead and of disabling innovation. At the same 
time, DOD is weighing the pros and cons of relying more on the 
commercial sector to carry military space payloads on board commercial 
satellites as well as alternate architectures that emphasize the use of 
smaller, simpler satellites that rely on both space and ground networks 
to carry out the same missions that large, complex, and expensive 
satellites do today.
    What are your views on multi-year procurement, incremental funding, 
and block-buy approaches, and to what extent do you envision the Air 
Force using these approaches for acquiring space systems?
    Answer. The Block buys enable ``process efficiencies'' otherwise 
lost as a result of production breaks. Lowering production costs by 
building and testing two or more satellites in succession by using 
nontraditional space procurement funding approaches uses production 
facilities more efficiently and helps the Department avoid untenable 
funding spikes, which inject instability into programs and hurt the 
Space Industrial Base suppliers.
    These approaches may not be appropriate for every space system 
procurement activity. If confirmed, I will support using innovative 
space system procurement approaches, including multi-year procurement, 
to ensure we are able to fund and produce these vital systems while 
still maintaining our ability to fund other core Air Force 
capabilities.
    Question. If confirmed, what would be your plan to maintain 
superiority in space, to push the state of technology, and to sustain 
innovation in light of an approach that locks the incumbent contractor 
into a long-term deal with just incremental advances in capability?
    Answer. Maintaining superiority in space requires continued 
investment in science and technology and innovative acquisition 
approaches that allow for incremental improvements to operational 
satellite programs. If confirmed, innovation will continue to be an Air 
Force priority, and I will continue supporting a strong government-
contractor environment that balances affordability with the opportunity 
for incremental system improvement.
    Question. Do you foresee opportunities to develop national security 
space satellites that are smaller, operationally responsive, and cost 
less to launch?
    Answer. The most important factors in any architecture development 
are how they accomplish the mission and how they meet requirements. Any 
opportunities for national security satellites that meet mission needs, 
cost less to operate, are more responsive, and potentially smaller 
should be considered seriously.
    Question. If so, what role would you play, if confirmed, in 
changing the acquisition culture from one that coalesces around large, 
complex, exquisite programs to one that coalesces around smaller, 
simpler programs that emphasize resilience over reliability?
    Answer. If confirmed, I will work closely with our Air Force 
acquisition leadership and with stakeholders in the Defense Department 
to foster an acquisition culture that supports delivering capabilities 
the warfighter needs. If the needs are best met by smaller, simpler 
programs, we will provide the guidance and resources to deliver space 
capabilities in that manner.
    Question. To what extent would you eliminate barriers and 
restrictions to enable DOD to more fully use hosted payloads and ride-
share arrangements?
    Answer. If confirmed, I will ensure we look at the totality of 
mission needs. Hosted payloads and ride-share arrangements may provide 
responsive and cost-effective space capabilities, but rigorous analysis 
and cost estimating are required. If hosted payloads and/or ride share 
agreements are selected as part of architecture to meet mission 
requirements, I will deal with barriers and restrictions to the best of 
my ability to enable these nontraditional approaches.
    Question. For fiscal year 2013, Congress rejected the termination 
of the Operationally Responsive Space Program and instead moved the 
office and function under the Space and Missile Systems Center (SMC), 
as found in section 914 of the National Defense Authorization Act for 
Fiscal Year 2013.
    If confirmed, will you support the implementation of section 914 
and support the timely and successful integration of the Operationally 
Responsive Space Program into SMC?
    Answer. Yes, the Air Force transitioned the ORS Office to AFSPC/
SMC. A more detailed, long-term plan is pending a fiscal year 2013 
Appropriations Bill.
    Question. If confirmed, will you fully, and in a timely manner, 
answer congressional inquiries on the status of the Operationally 
Responsive Space Office?
    Answer. Yes, I will make it a priority to respond to all 
congressional inquiries.
                           long-range bombers
    Question. The B-52s will begin to be retired in the 2030 timeframe 
but are in urgent need of recapitalization of their data backbone for 
advanced targeting and communications.
    Do you support the B-52 Combat Network Communications Technology 
(CONECT) program and will you work with Global Strike Command to ensure 
the full suite of capabilities of the CONECT system are implemented in 
the aircraft?
    Answer. I support the capabilities that the CONECT program brings 
in order to enable more effective B-52 employment in the complex, 
network-centric battle space of the future. Although the Air Force 
restructured the CONECT program in the fiscal year 2013 PB, the 
capability remains a top Air Force Global Strike Command priority. If 
confirmed, I will work with Global Strike Command to balance warfighter 
needs and resources as we address our future budgets.
        duties and responsibilities as chief management officer
    Question. Section 904 of the National Defense Authorization Act for 
Fiscal Year 2008 designates the Under Secretary of the Air Force as the 
Air Force's Chief Management Officer (CMO). Section 908 of the National 
Defense Authorization Act for Fiscal Year 2009 requires the CMO of each 
Military Department to carry out a comprehensive business 
transformation initiative, with the support of a new Business 
Transformation Office.
    What is your understanding of the duties and responsibilities of 
the Under Secretary as the CMO of the Department of the Air Force?
    Answer. It is my understanding that the responsibilities of the 
Chief Management Officer, consistent with section 904 of the National 
Defense Authorization Act for Fiscal Year 2008, include the following: 
ensuring the Air Force's capability to carry out DOD's strategic plan 
in support of national security objectives; ensuring the core business 
missions of the Department of the Air Force are optimally aligned to 
support the Department's warfighting mission; establishing performance 
goals and measures for improving and evaluating overall economy, 
efficiency, and effectiveness and monitoring and measuring this 
progress; and working with DOD's Chief Management Officer to develop 
and maintain a strategic plan for business reform. Under section 908 of 
the National Defense Authorization Act for Fiscal Year 2009, the Chief 
Management Officer is also responsible for carrying out an initiative 
for business transformation for the Air Force. Under section 2222 of 
the National Defense Authorization Act for Fiscal Year 2010, I would be 
responsible for pre-certification for Air Force business systems 
programs prior to submission for Department of Defense Deputy Chief 
Management Officer review and certification. If confirmed, I will 
ensure the core function and missions of the Air Force are optimally 
aligned to support the joint warfighting mission. I intend to fulfill 
the requirements of the law by establishing performance goals and 
measures for improving and evaluating the overall affordability, 
efficiency, and effectiveness of Air Force programs.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. I have held equivalent duties and responsibilities as the 
Deputy Under Secretary of the Navy and Deputy Chief Management Officer, 
Office of the Under Secretary of the Navy. While in this capacity, I 
have been engaged in the implementation of the CMO duties directed by 
section 904 of NDAA 2008, section 905 of NDAA 2009, and section 2222 of 
NDAA 2010 and intimately familiar with the related DOD guidance issued 
by the DOD Deputy Chief Management Officer. My experience in Navy 
Enterprise Resource Planning implementation and assuring compliance 
with financial improvement and audit readiness requirements will be of 
particular benefit in my new duties.
    Question. Do you believe that the CMO and the Business 
Transformation Office have the resources and authority needed to carry 
out the business transformation of the Department of the Air Force?
    Answer. Yes I do, putting aside the uncertainty of sequestration 
and further fiscal challenges imposed on the Department and Air Force. 
I have favorable first impressions. If, upon further analysis, I become 
convinced more resources are required to affect transformation, I would 
work closely with the Secretary to ensure the Air Force is applying 
sufficient effort to this important issue.
    Question. What role do you believe the CMO and the Business 
Transformation Office should play in the planning, development, and 
implementation of specific business systems by the Military 
Departments?
    Answer. Consistent with the laws that established them, the CMO and 
the Business Transformation Office should work with the Secretary and 
Chief to set transformation priorities aligned to DOD and Air Force 
needs. They should work to ensure business systems solutions make 
economic sense and are feasible; build on or replace existing systems; 
and enforce sound execution through application of the DOD 
certification process, pursuant to the NDAA for Fiscal Year 2005 and 
amplified in the NDAA for Fiscal Year 2012, that requires all business 
systems over $1 million in cost across the future years program be 
certified as meeting a mission need and supported by a business case.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the position of CMO and creating the 
Business Transformation Office?
    Answer. I have no recommendations to make at this time. If 
confirmed, I will continue to assess the requirement for additional or 
modified authorities and look forward to working with this committee to 
ensure that the objectives of the CMO, as intended by Congress, are 
met.
    Question. Section 2222 of title 10, U.S.C., requires that the 
Secretary of Defense develop a comprehensive business enterprise 
architecture and transition plan to guide the development of its 
business systems and processes. The Department has chosen to implement 
the requirement for an enterprise architecture and transition plan 
through a ``federated'' approach in which the Business Transformation 
Agency has developed the top level architecture while leaving it to the 
military departments to fill in most of the detail. The Air Force's 
business systems, like those of the other military departments, remain 
incapable of providing timely, reliable financial data to support 
management decisions. In particular, the Government Accountability 
Office has reported that the Air Force has not yet followed DOD's lead 
in establishing new governance structures to address business 
transformation; has not yet developed comprehensive enterprise 
architecture and transition plan that plug into DOD's federated 
architecture in a manner that meets statutory requirements; and instead 
continues to rely upon old, stove-piped structures to implement 
piecemeal reforms.
    If confirmed, what steps, if any, would you take to ensure that the 
Air Force develops the business systems and processes it needs to 
appropriately manage funds in the best interest of the taxpayer and the 
national defense?
    Answer. If confirmed, I will work with the Air Force comptroller to 
ensure that Air Force funding execution is more visible in real time to 
senior leaders. While I have not yet been briefed in detail on the 
status and challenges for Air Force systems, I would work to ensure 
that our systems and processes achieve the outcome of enhancing our 
ability to manage funds; ensure a detailed schedule is put in place and 
managed to achieve that outcome; and ensure audits are conducted to 
validate performance.
    Question. Do you believe that a comprehensive, integrated, 
enterprise-wide architecture and transition plan is essential to the 
successful transformation of the Air Force's business systems?
    Answer. Yes, I do.
    Question. What steps would you take, if confirmed, to ensure that 
the Air Force's enterprise architecture and transition plan meet the 
requirements of section 2222?
    Answer. If confirmed, I will engage the business transformation 
staff in a detailed review of how the Air Force is developing and using 
its business enterprise architecture to manage transformation and stay 
aligned with the DOD Business Enterprise Architecture and related 
strategic transformation priorities. I would make it a priority to meet 
very early on with the Deputy CMO and Business Transformation staff to 
validate the current state of the Air Force business enterprise 
architecture and its alignment to the DOD architecture. I would focus 
our review on how the architecture is being applied within the Air 
Force governance process, and would direct and implement any needed 
improvements
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. I think timely financial information is critical in 
managing the operations of large organizations. I understand the 
frustration of many at the difficulty in achieving audits of DOD 
financial statements and appreciate congressional efforts, through 
section 1003 of the National Defense Authorization Act for Fiscal Year 
2012, reinforcing the Secretary of Defense's goal of accelerating audit 
readiness. If confirmed, I will be active in supporting DOD and 
Secretary of the Air Force's continued focus on financial issues, 
achieving the end of calendar year 2014 deadline for Statement of 
Budgetary Resources, and realizing full audit readiness by 2017.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial and business information was not 
routinely available for these purposes?
    Answer. If confirmed, I would use that situation as an opportunity 
to improve the process of providing such financial and business 
information. I would make this area a priority, especially if it aligns 
to the major strategic mission priorities of the organization, and 
assign actions with accountability for corrections. Finally, I would 
provide active follow-up to ensure the needed results were achieved.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to Air Force managers?
    Answer. If confirmed, I will focus on establishing the priorities 
for business performance improvements on behalf of the Secretary of the 
Air Force and report on progress toward achieving these goals. As the 
CMO, I would expect to be an active and key member of the Air Force 
governance process, enforcing Department priorities in decisions 
regarding programs, organizations and processes across the functional 
staff and Air Force Major Commands.
                     auditable financial statements
    Question. Section 1003 of the National Defense Authorization Act 
for Fiscal Year 2010 requires the Chief Management Officer of the 
Department of Defense to establish a plan to ensure that DOD's 
financial statements are validated as ready for audit by not later than 
September 30, 2017. The Secretary of Defense has established the 
additional goal of ensuring that the statement of DOD's budgetary 
resources is validated as ready for audit by not later than September 
30, 2014.
    In your opinion, is the Department of the Air Force on track to 
achieve these objectives, particularly with regard to data quality, 
internal controls and business process re-engineering?
    Answer. The Air Force plan has been reviewed and integrated with 
the OSD FIAR plan that integrates the entire DOD business environment 
but, admittedly, it is still not without risk. However, they are seeing 
successes to date that affirm they are on the right path. The Air Force 
continues to be cautiously optimistic. It has received seven favorable 
opinions with two more assertions currently under examination. The 
Statement of Budgetary Resources has received clean opinions on the 
Budget Authority covering $161 billion while the Existence and 
Completeness of Mission Critical Assets has received favorable opinions 
on a total of $97.4 billion. The Air Force is the first Service given a 
clean opinion on its Fund Balance with Treasury reconciliation process. 
This gives the Air Force the ability to validate its transactions 
between the general accounting system and Treasury. The Air Force will 
continue to assert assessable units until the entire SBR is audit 
ready. If confirmed, I will make it a priority in my capacity as Chief 
Management Officer to more closely review and monitor the Air Force 
strategy.
    Question. If not, what impediments may hinder the Air Force's 
ability to achieve this goal and how would you address them?
    Answer. Currently, a key impediment to the Air Force's ability to 
achieve this goal is the lack of contract support to collect, document, 
test, and audit the existing business processes. At this time, the 
fiscal year 2012 through fiscal year 2017 Financial Improvement Audit 
Readiness (FIAR) support contract is under protest. The Air Force is 
carefully working to resolve the issue, but without contract support, 
the progress level is greatly reduced. This risk has the potential to 
increase due to the current fiscal environment
    A second impediment is the lack of an integrated transaction-based 
accounting system. The Air Force's reliance on legacy systems requires 
additional compensating process controls. The Air Force will analyze 
legacy systems and implement appropriate cost-effective changes while 
they continue to pursue the Defense Enterprise Accounting and 
Management System and the Air Force Integrated Personnel and Pay 
System. Further, the Air Force continues to collaborate within the 
Department to share lessons learned, establish performance measures and 
consolidate efforts where applicable.
    Question. In your view, are the steps that the Air Force needs to 
take to meet the 2014 goal consistent with the steps that DOD needs to 
take to achieve full auditability by 2017?
    Answer. Yes, the Air Force approach to audit readiness is 
consistent with DOD. As an active member of the FIAR Governance, the 
Air Force has the opportunity to collaborate on establishing the goals, 
objectives and guidance to produce auditable financial statements for 
the Department. The Air Force adheres to the same guidance published by 
OUSD(C) which controls the standards for sampling, threshold, and scope 
to be used during audit readiness efforts. The DOD Comptroller reviews 
all assertion packages prior to submission for audit by an Independent 
Public Accounting Firm or the DOD Inspector General. Upon favorable 
examination, the Air Force will sustain those auditable processes to 
support the overall DOD assertion for the principal financial 
statements.
    Question. What steps will you take, if confirmed, to ensure that 
the Air Force moves to achieve these objectives without an unaffordable 
or unsustainable level of one-time fixes and manual work-arounds?
    Answer. The Air Force has established a governance process to 
oversee its audit readiness objectives, which is aligned to its 
Investment Review process, to ensure Senior Leadership oversight across 
the Air Force enterprise. This governance is aligned to OSD governance 
to ensure Department-wide integration of efforts to achieve audit 
objectives and avoid those stove-piped, unaffordable, and unsustainable 
fixes. A key element of this governance will be to document and 
standardize the business processes across the Air Force to ensure they 
are traceable and auditable. In order to do this, the Air Force is 
implementing a standard set of tools to validate, document, re-use, and 
sustain the results from its audit readiness efforts, while also 
ensuring auditability of its Information Technology systems.
    Utilizing these standards and tools will allow Senior Leader 
oversight on the corrective action plans being implemented across the 
Air Force in collaboration with the Army, Navy, and Service providers 
throughout the Federal Government. This holistic, enterprise-wide 
approach will allow the Air Force to determine impacts of business 
process changes, ensure alignment with the DOD Business Enterprise 
Architecture, and inform its IT investment decisions. Finally, the Air 
Force strategy will provide a mechanism to encourage culture change, 
which is necessary for future continuous process improvement, the 
results of which will also be documented and auditable.
    If confirmed, I will continue to press forward on auditability 
goals, but with an eye towards sustainability so as not to waste 
valuable resources in this tight fiscal environment.
                           acquisition issues
    Question. What are your views regarding the need to reform the 
process by which the Department of the Air Force acquires major weapons 
systems?
    Answer. Continuing to improve the acquisition process for major 
weapons systems is a critical issue for the Air Force, as well as for 
DOD. My initial impression is that the Air Force has taken focused 
actions to reform its acquisition processes and is continuing to work 
to make further improvements in response to the Weapons System 
Acquisition Reform Act of 2009. In addition, I understand that the Air 
Force is working on Mr. Kendall's ``Better Buying Power 2.0'' 
initiatives in the pursuit of greater efficiency and productivity. If 
confirmed, I would expect to learn more about the challenges facing Air 
Force acquisition and to help the leadership team take further steps to 
deliver better value to the taxpayer and warfighter by improving the 
way the Air Force does business.
    Question. What steps would you recommend to improve that process?
    Answer. If confirmed, I would continue the acquisition improvements 
begun by the Secretary of the Air Force and the Chief of Staff and work 
with OSD on their acquisition improvement initiatives. Specifically, I 
would recommend the Air Force work with OSD on program affordability, 
cost control throughout the program lifecycle, and improving the 
acquisition workforce across the Air Force.
    Question. If confirmed, what role do you expect to play in the 
major defense acquisition programs of the Department of the Air Force?
    Answer. If confirmed, I will assist the Secretary of the Air Force 
in his goal of recapturing acquisition excellence. I understand his 
initiatives include providing full spectrum acquisition capabilities to 
the Air Force and the Department of Defense, and ingraining a culture 
of process improvement within acquisition. I would look forward to 
helping the Secretary to achieve his acquisition goals in whatever 
capacity he believes I am best suited to serve.
    Question. Roughly half of the Department of Defense's largest 
acquisition programs have exceeded the so-called ``Nunn-McCurdy'' cost 
growth standards established in section 2433 of title 10, U.S.C. One 
such program is the Air Force's Joint Strike Fighter program, for which 
total life-cycle cost has now been estimated to exceed $1 trillion.
    If confirmed, what steps, if any, would you take to address the 
out-of-control cost growth on the Department of the Air Force's major 
defense acquisition programs?
    Answer. I am in support of the principles that motivated the 
Weapons Acquisition Reform Act of 2009. I think that law lays out both 
the drivers of program challenges and the need to take very seriously 
any critical breaches of Nunn-McCurdy thresholds. As such and if 
confirmed, my analysis of the Air Force's acquisition programs would 
focus on the assumptions used in establishing program baselines. Such 
baselines must be based on realistic schedule and technical assumptions 
and accurate cost estimates. If confirmed, I will place an emphasis on 
realistic budgeting based on improved program cost estimates.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced ``critical'' cost 
growth under Nunn-McCurdy?
    Answer. The direction provided by Nunn-McCurdy and by the Weapon 
Systems Acquisition Reform Act of 2009 is essential in determining 
whether to terminate or continue a program that has experienced a 
critical cost growth. I agree with the new law that, when such breaches 
occur, we must understand what the root cause of that breach is. I 
further agree with the presumption for termination that must guide 
one's analysis and also the requirement that, if a program is 
restructured, it should be required to receive new milestone approval 
before proceeding. While there are programs that will be essential to 
national security, I believe the Department must undertake hard 
analysis in looking at the alternatives in such a case.
    Question. Many experts have acknowledged that the Department of 
Defense may have gone too far in reducing its acquisition workforce, 
resulting in undermining its ability to provide needed oversight in the 
acquisition process.
    Do you agree with this assessment?
    Answer. The answer in the past would have been yes, but my 
understanding is that the Air Force has alleviated a lot of these 
issues through its acquisition improvement initiatives since fiscal 
year 2008.
    Question. If so, what steps do you believe the Department of the 
Air Force should take to address this problem?
    Answer. If confirmed, I will look for ways to continue 
strengthening the Air Force's acquisition workforce.
    Question. The Weapon Systems Acquisition Reform Act of 2009 (WSARA) 
was intended to ensure that future weapon systems move forward on a 
sound footing by addressing unrealistic program cost and schedule 
estimates, the absence of clearly defined and stable requirements, the 
inclusion of immature technologies that unnecessarily raise program 
costs and delay development and production, and the failure to solidify 
design and manufacturing processes at appropriate junctures in the 
development process.
    Do you support the approach taken by WSARA?
    Answer. I fully support the approach taken by WSARA and all efforts 
to improve acquisition in the Air Force.
    Question. What additional steps, if any, do you believe the 
Department of the Air Force should take to address these problems?
    Answer. I believe the Air Force should continue the effort to 
improve and maintain the acquisition workforce expertise. Specifically, 
I recommend enhanced acquisition training and increasing the 
availability of highly qualified course instructors in such functional 
areas as cost estimating that would strengthen the Air Force's program 
management business negotiation and oversight role.
    Question. By some estimates, the Department of Defense now spends 
more money every year for the acquisition of services than it does for 
the acquisition of products, including major weapon systems. Yet, the 
Department places far less emphasis on staffing, training, and managing 
the acquisition of services than it does on the acquisition of 
products.
    What steps, if any, do you believe the Air Force should take to 
improve the staffing, training, and management of its acquisition of 
services?
    Answer. The Air Force must continue its focus on improving services 
acquisition. Leaders throughout the Air Force must be aware of their 
role in properly assigning personnel to the acquisition teams, 
resourcing the programs, ensuring personnel receive the necessary 
service acquisition training, and growing experts in acquiring 
services. Specifically, the Air Force Senior Manager for Services has 
partnered with Air Force Major Commands to identify senior level 
Services advocates to ensure consistency with approved processes and 
that DOD and Air Force policy is being followed.
    Question. Do you think the Air Force should develop processes and 
systems to provide managers with access to information needed to 
conduct comprehensive spending analyses of services contracts on an 
ongoing basis?
    Answer. Yes. It is critical that decisionmakers have access to key 
metrics throughout the life of contracted services. The Air Force is 
currently developing a senior leader dashboard to provide near real 
time visibility on program execution and ensure transparency of 
contracted services.
          air force policies regarding drug and alcohol abuse
    Question. What is your understanding of the Air Force's policy with 
respect to disciplinary action and administrative separation of Air 
Force personnel who have been determined to have used illegal drugs? Do 
you agree with this policy?
    Answer. The Air Force does not have any policy per se on 
disciplinary actions with respect to particular criminal offenses. 
However, I know each drug case is investigated by law enforcement 
personnel and the report of investigation is provided to the airman's 
commander to review the evidence for appropriate disposition. Each case 
is evaluated on its merits, including the type of illegal drug used, 
the facts and circumstances of the use or uses, the military record of 
the airman, and the strength of the evidence.
    The Air Force has a policy on administrative separation for illegal 
drug use found in its administrative separation instruction. It states 
that drug abuse is incompatible with military service and airmen who 
abuse drugs one or more times are subject to administrative separation 
for misconduct. In fact, administrative separation processing is 
mandatory for drug abuse unless a waiver is granted. This seems to be 
an appropriately fair policy to me.
    Question. What is your understanding of the Air Force's policy with 
respect to rehabilitation and retention on Active Duty of members of 
the Air Force who have been determined to have used illegal drugs or 
abused alcohol or prescription drugs? Do you agree with this policy?
    Answer. Only in very limited circumstances does the Air Force 
retain airmen determined to have used illegal drugs, including illegal 
use of prescription drugs. In order to be retained, airmen have the 
burden of proving that retention is warranted by meeting a number of 
criteria, to include if such drug use was a departure from the airman's 
usual behavior and is not likely to recur, does not involve recurring 
incidents, and does not involve distribution. The Air Force does 
provide some limited protection for airmen who self-identify their drug 
use for the purpose of seeking treatment in that they may avoid 
criminal prosecution, but will still face administrative separation. 
This seems to be an appropriately fair policy to me.
    Question. Do you believe that the Air Force has devoted sufficient 
resources for implementation of its rehabilitation policies and 
objectives since 2001? If not, in what ways have resources been 
insufficient?
    Answer. Yes. The Air Force maintains a comprehensive and dynamic 
drug detection and response program that includes rehabilitation as a 
key element. There are trained alcohol and drug counselors and medical 
providers at each installation to provide evaluation and outpatient 
treatment services. For airmen needing more intensive inpatient 
treatment, medical teams arrange for these services through TRICARE 
with local community medical centers.
                          religious guidelines
    Question. The DOD Independent Review Related to Fort Hood observed 
that ``DOD policy regarding religious accommodation lacks the clarity 
necessary to help commanders distinguish appropriate religious 
practices from those that might indicate a potential for violence or 
self-radicalization'' and recommended that the policy be updated.
    What is your understanding of current policies and programs of the 
Air Force regarding religious practices in the military?
    Answer. The Air Force Chaplain Corps provides spiritual care and 
the opportunity for airmen, their families, and other authorized 
personnel to exercise their constitutional right to the free exercise 
of religion. Every effort is made to ensure this right is protected. 
Consistent with the Air Force Fort Hood Follow-On Review 
recommendations, the Air Force is reviewing and updating policies and 
guidance consolidation into a single series of instructions. This 
should ensure that leaders consult chaplains and legal counsel before 
making decisions, to better address prevention, identification, and 
response to religious-based disrespect, harassment, and discrimination 
in relevant training of airmen (e.g., equal opportunity training, free 
exercise of religion training, wingman training, and commander 
courses).
    Question. What is your view of the need to clarify the policy 
regarding religious accommodation in the Air Force?
    Answer. The Air Force continues to ensure clarity to commanders by 
providing clear policy on religious accommodation, which maintains 
consistency with DOD policy. Air Force policy directs that requests to 
commanders for religious accommodation are welcomed and dealt with 
fairly and consistently throughout the Air Force. While requests vary 
in need and accommodation, all requests should be approved unless 
approval would have a real (not hypothetical) adverse impact on 
military readiness, unit cohesion, standards or discipline and, 
therefore, disapproval of the accommodation request is in furtherance 
of a compelling military or government interest. Commanders are to 
consult with their installation chaplain and staff judge advocate on 
requests for religious accommodation. However, consistent with the Air 
Force Fort Hood Follow On Review recommendations, the Air Force is 
presently reviewing and updating policy and guidance to address 
prevention, identification and response to religious-based disrespect, 
harassment and discrimination.
    Question. Do Air Force policies regarding religious practices in 
the military accommodate, where appropriate, religious practices that 
require adherents to wear items of religious apparel or adhere to 
certain grooming practices related to their faith?
    Answer. The Air Force has a clear process to ensure every request 
for religious accommodation is welcomed and dealt with as fairly and 
consistently. Requests for accommodation should be approved, unless 
approval would have a real (not hypothetical) adverse impact on 
military readiness, unit cohesion, standards or discipline, and 
therefore, disapproval of the accommodation request is in furtherance 
of a compelling military and/or government interest. Concerning the 
wearing of religious garments or other articles, requests for 
accommodation involving items such as the outdoor wear of religious 
head coverings that are not concealed under military headgear and those 
impacting grooming and personal appearance (e.g., hair length and 
style, tattoos, and ``body art'') must be approved by the Deputy Chief 
of Staff for Manpower, Personnel, and Services.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. Yes, the policies are intended to protect both the free 
exercise of religion for all airmen and avoid the appearance of an 
official endorsement of any particular religion. Air Force policy 
presently communicates that all airmen have the freedom to choose to 
practice their particular religion or subscribe to no religious belief 
at all. If confirmed, I will closely monitor the implementation of this 
policy.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. From what I have been told so far, I believe that Air Force 
Chaplains are well trained to provide prayers offered in pluralistic 
settings. This requires sensitivity to their audience which includes 
individuals from various religious traditions as well as those who 
profess no religious belief at all. The guidance provided by Air Force 
leaders also makes clear that supervisors respect each chaplains' right 
to adhere to the tenets of his or her faith and thus not require 
chaplains to participate in religious activities, including public 
prayer, which are inconsistent with their faith tradition. If 
confirmed, I will look into this in greater detail.
    Question. What is your assessment of measures taken at the Air 
Force Academy to ensure religious tolerance and respect?
    Answer. Air Force leadership clearly takes very seriously the idea 
of religious tolerance and respect. The team effort to improve the 
religious atmosphere at the Academy continues to reduce cases of 
intolerance and inappropriate behavior. Since beginning their Cadet 
Religious Respect Training Program, 7,782 cadets have been trained to 
respect the beliefs or non-beliefs of others. In addition, the Dean of 
Faculty trained 910 staff members to ensure the academic environment is 
free of negative religious expressions. Further, the Athletic 
Department's Religious Respect Program trained 300 coaches and staff to 
ensure the athletic department adheres to the guidance. Finally, the 
Cadet Interfaith Council continues to positively impact relationships 
between various faith groups and cooperates in various service projects 
to improve the community. If confirmed, I will monitor this closely to 
ensure that the training put in place is yielding the desired outcomes.
                    air force science and technology
    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science and technology in meeting 
Air Force missions?
    Answer. The innovative technology produced by the Air Force Science 
and Technology (S&T) Program balances high-risk with high-return 
science and knowledge. If confirmed, the direction I provide would 
focus on supporting the Air Force capabilities fundamental to deterring 
and defeating aggression, projecting power in anti-access and area 
denial environments, operation in space and cyberspace domains, and 
maintaining a safe, secure and effective strategic deterrent.
    Question. Do you believe the current balance between short- and 
long-term research is appropriate to meet current and future Air Force 
needs?
    Answer. From what I can tell at this point, yes. The success of the 
Air Force will depend on continued innovation and technical excellence. 
The Air Force S&T Program invests across a broad portfolio to attain a 
balance between near-term, quick-reaction capability support; mid-term 
technology development to modernize the force; and revolutionary 
technologies that address far-term warfighting needs.
    Question. If confirmed, what role would you play in ensuring 
research priorities that will meet the needs of the Air Force over the 
next 10 years?
    Answer. As outlined in the Defense Strategic guidance, the future 
strategic environment will require an agile and flexible military. 
Therefore, it is important that the Air Force S&T Program continue to 
invest in a broad portfolio of research to anticipate future needs. If 
confirmed, in my role as the senior energy and sustainability official, 
I will also take special interest in the Air Force's continued 
investment in the development and demonstration of advanced 
technologies that address affordability and lifecycle costs of future 
systems.
    Question. In the face of rising acquisition costs for programs such 
as the Joint Strike Fighter, and programs to support space operations, 
if confirmed, how would you plan to ensure the protection of funding 
for long-term science and technology investments?
    Answer. I take the issue of rising acquisition costs very 
seriously. Protecting the funding for the Air Force S&T Program is very 
important as it is a key element in making mature technologies 
available for transition into development programs. The S&T Program 
allows the Air Force to sustain its heritage of technological 
superiority.
                         air force laboratories
    Question. What role should Air Force laboratories play in 
supporting current operations and in developing new capabilities to 
support Air Force missions?
    Answer. It is my view that the Air Force S&T program--including the 
labs--should continue to develop and transition innovative and relevant 
technologies; build and nurture a technically skilled, highly educated 
and adaptive workforce able to provide effective solutions for today's 
issues; and conduct innovative research to maintain our technological 
edge over potential adversaries.
    Question. If confirmed, how will you ensure that Air Force 
laboratories have the highest quality workforce, laboratory 
infrastructure, resources, and management, so that they can continue to 
support deployed warfighters and develop next generation capabilities?
    Answer. If confirmed, I will spend time educating myself on the 
details of the Air Force's current initiatives in this area. Ensuring 
the Air Force continues to have war-winning technology requires the 
proactive management of its current Science, Technology, Engineering, 
and Mathematics (STEM) workforce and a deliberate effort to grow the 
laboratory scientists and engineers of the future. Those researchers 
need state-of-the-art laboratory facilities to best support deployed 
warfighters with ready-to-use technologies and develop next generation 
capabilities. I will rely on and support the senior leadership of the 
acquisition community to assess and invest in infrastructure, including 
workforce, research facilities and funds necessary to support the 
future technology needs of the Air Force.
    Question. Do you support the full utilization of authorities 
established by Congress under the Laboratory Personnel Demonstration 
program?
    Answer. Retaining the current world-class, highly-skilled workforce 
is an important part of the Air Force's Bright Horizons STEM workforce 
strategic roadmap. I understand that the Lab Demo program has done much 
to ensure the Air Force Research Laboratory's ability to attract and 
retain personnel since its inception in 1997. This flexible system has 
helped to achieve the best workforce for the mission, adjust the 
workforce for change and improve overall quality. If confirmed, I will 
work with the laboratory leadership to monitor the Lab Demo program to 
ensure it remains effective for its primary purpose and propose changes 
to the program as they become required.
    Question. Do you believe that the Air Force's laboratories and 
engineering centers should have a separate, dynamic personnel system, 
uniquely tailored to support laboratory directors' requirements to 
attract and retain the highest quality scientific and engineering 
talent?
    Answer. If confirmed, I look forward to carefully examining the Air 
Force's experience with the Lab Demo program and working with 
laboratory director's to determine future needs and authorities for the 
program.
    Question. How will you assess the quality of Air Force laboratory 
infrastructure and the adequacy of investments being made in new 
military construction and sustainment of that infrastructure?
    Answer. I am aware that the 2005 Base Realignment and Closure 
(BRAC) effort successfully completed in September 2011 provided several 
new, state-of-the-art facilities within the Air Force Research 
Laboratory. The Laboratory's BRAC realignments successfully realized 
the Secretary of the Air Force's priorities for BRAC 2005, including 
the goals of realigning Air Force infrastructure with the future 
defense strategy, maximizing operational capability by eliminating 
excess physical capacity, and capitalizing on opportunities for joint 
activity. If confirmed, I will work closely with the leadership of the 
acquisition community to ensure that we remain vigilant and upgrade our 
S&T infrastructure in a timely manner so that major research and 
programs are not put at risk due to aging facilities.
    Question. Are you concerned about the current or future supply of 
experts in defense critical disciplines, particularly personnel with 
appropriate security clearances, to hold positions in defense 
laboratories?
    Answer. Yes, I am always concerned about maintaining a solid 
representation of Science, Technology, Engineering and Math (STEM) 
professionals in the critical defense disciplines our laboratories and 
acquisition enterprise require. As I understand it, in the last 5 
years, the Air Force has been able to meet its needs by accessing more 
than 3,100 engineers, physical and analytical scientists. 
Congressionally-authorized personnel and hiring authorities have helped 
improve the Air Force's compensation and hiring abilities.
               air force test and evaluation capabilities
    Question. Over the past few years, the Air Force has proposed 
taking measures to significantly reduce its test and evaluation 
capabilities--both infrastructure and workforce. These efforts have, in 
general, been overturned by the Department of Defense and Congress.
    Do you believe that the Air Force has test and evaluation 
capabilities that are excess to Department of Defense needs?
    Answer. The Air Force strives to ensure it uses and organizes its 
test and evaluation (T&E) capabilities as efficiently as possible to 
meet Air Force and DOD needs within a fiscally constrained budget. If 
confirmed, I will work to continue balancing Air Force T&E 
capabilities, Air Force and DOD needs, the available budget, and our 
National interest to propose feasible and prudent adjustments.
    Question. What steps will you take to ensure that the Air Force has 
the appropriate testing infrastructure and qualified test workforce?
    Answer. If confirmed, I will work cooperatively with the SecAF, 
DOD, and industry to help shape the future of our Nation's 
infrastructure and workforce. I will look at the T&E infrastructure and 
workforce requirements to identify potential efficiencies; support 
workforce shaping, training, and retention programs; and focus the test 
infrastructure to support the current and future needs of the DOD 
acquisition community and broader national interests.
               air force information technology programs
    Question. What major improvements would you like to see made in the 
Air Force's development and deployment of major information technology 
systems?
    Answer. If confirmed, I will further explore how information 
technology systems are delivered to our airmen. Specifically, I will 
review the Air Force's current information technology and acquisition 
governance structures and processes and look for opportunities to 
further strengthen oversight and instill rigor and discipline in the 
planning, development, and deployment of major information technology 
systems. This is particularly important when the business case supports 
pursuing an enterprise solution.
    Question. How will you encourage process and cultural change in 
organizations so that they maximize the benefits that new enterprise 
information technology systems can offer in terms of cost savings and 
efficiency?
    Answer. If confirmed, I will delve deeper into this area in order 
to fully understand and appreciate previous and ongoing Air Force 
efficiency efforts and how technology was used to drive down costs. I 
will also ensure that there is a solid and rigorous governance 
structure in place to ensure the necessary business process 
reengineering takes place to realize the benefit of enterprise systems, 
when the business case makes clear the value. Savings are not realized 
when individual components are able to bend the technology to fit their 
processes, rather than change processes to meet the enterprise 
solution.
    Question. What is the relationship between Air Force efforts to 
implement enterprise information technology programs and supporting 
computing services and infrastructure to support Air Force missions, to 
the efforts being undertaken by the Defense Information Systems Agency 
and the Assistant Secretary of Defense for Networks and Information 
Integration?
    Answer. All of the Military Departments, led by the Joint Staff and 
the DOD Chief Information Office, and in close partnership with the 
Defense Information Systems Agency, are in close collaboration and 
planning for the implementation of the Joint Information Environment. 
This partnership allows the Air Force to synchronize ongoing 
consolidation and enterprise service efforts and transition to the 
Department's enterprise solutions. If confirmed, I will continue to 
forge this relationship and find opportunities to leverage Air Force 
investments to better posture the Department to employ the full range 
of operational capability and capacity to the Joint warfighter. I will 
also look for opportunities from Department investments that the Air 
Force can leverage to meet its mission needs.
                      investment in infrastructure
    Question. In recent years, various witnesses appearing before the 
Committee have testified that the Military Services under-invest in 
their facilities compared to private industry standards. Decades of 
under-investment in our installations have led to increasing backlogs 
of facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    What is your assessment of Air Force infrastructure investment?
    Answer. The Air Force, like all Services, is having to make 
difficult investment trade-offs as budgets decrease. If confirmed, I 
will review the current and future requirements for infrastructure, to 
ensure that the Air Force can support its mission requirements and the 
Secretary of the Air Force's priorities.
    Question. If confirmed, what actions, if any, would you propose to 
increase resources to reduce the backlog and to improve Air Force 
facilities?
    Answer. If a thorough review of infrastructure investment indicates 
the Air Force is taking too much risk, then, if confirmed, I will work 
closely with Air Force leadership to make appropriate fiscal 
adjustments to reduce the backlog and improve facilities.
                 sexual assault prevention and response
    Question. The Air Force is investigating numerous allegations of 
sexual misconduct by Military Training Instructors at Basic Military 
Training at Joint Base San Antonio-Lackland. Several instructors have 
already been convicted of various offenses and others are pending trial 
by court-martial. The Air Force addressed similar allegations of sexual 
misconduct at the Air Force Academy nearly a decade ago. Allegations of 
sexual misconduct are not unique to the Air Force and numerous cases of 
sexual misconduct involving servicemembers in theater have been 
reported over the last several years. Many victims and their advocates 
contend that they were victimized twice: first by attackers in their 
own ranks and then by unresponsive or inadequate military treatment. 
Secretary Panetta has recently implemented several new initiatives 
aimed at curbing sexual assaults in the military and improving victim 
support.
    What is your assessment of the Air Force's implementation of the 
Secretary's new policies, including his decision to withhold initial 
disposition authority over certain offenses to the general court-
martial convening authority?
    Answer. I support the Secretary of Defense's leadership and his 
decision. Withholding the initial disposition authority at the Special 
Court Martial Convening authority level reassures airmen that we are 
taking the issue of sexual assault very seriously.
    Question. What is your understanding of the resources and programs 
the Air Force has in place to provide victims of sexual assaults the 
medical, psychological, and legal help that they need?
    Answer. From initial briefings, it appears to me that the Air Force 
Military Treatment Facilities (MTFs) have the appropriate resources to 
offer support to sexual assault victims. Additionally, Air Force 
forward deployed mental health assets are available to provide 
necessary consultation, assessment, intervention, and referral for 
mental health issues, to include support in cases of sexual assault.
    The Air Force has also forward deployed judge advocates to provide 
complete legal support to the Air Force and Joint missions. Legal 
services available to victims at their home station are equally fully 
available to victims in deployed locations, to include legal 
assistance, defense services, victim witness assistance, or other legal 
needs.
    This is an issue I take very seriously, and if confirmed I would 
make it priority to ensure that adequate resources and programs are 
available to victims of sexual assault.
    Question. What is your view of the steps the Air Force has taken to 
prevent additional sexual assaults? In your view, are these steps 
adequate?
    Answer. I believe Air Force leadership has made a clear priority of 
the prevention of sexual assaults and are taking the necessary steps to 
do so. The Secretary, Chief of Staff and the Chief Master Sergeant of 
the Air Force recently issued a tri-signature memorandum addressed to 
every airman that highlighted zero tolerance of sexual assault, the 
importance of bystander intervention and responsibility for victim 
care. The Chief of Staff also recently convened a wing commander's call 
to discuss this topic and directed commanders to conduct a health and 
welfare inspection of workplaces to ensure a culture of dignity, trust 
and respect is fostered. If confirmed, it would be a priority of mine 
to support these steps.
    Question. What is your view of the adequacy of the training and 
resources the Air Force has in place to investigate and respond to 
allegations of sexual assault?
    Answer. I believe the Air Force has taken significant and effective 
steps to increase training and provide resources for investigating and 
responding to allegations of sexual assault. Air Force installation 
level Sexual Assault Response and Prevention Coordinators (SARCs) and 
Victim Advocates (VAs) receive extensive initial training before 
assuming their positions. Additionally, both SARCs and VAs receive 
annual refresher training.
    All Air Force Office of Special Investigations (AFOSI) special 
agents receive extensive training in the handling of violent crime 
investigations, including specific handling of sexual assault 
investigations. In 2009, the Air Force funded 24 additional civilian 
special agents to focus on sexual offenses at locations with the 
highest incidence of sexual assault. AFOSI also recently developed a 2-
week advanced training course, dedicated exclusively to sexual assault 
investigations.
    The Judge Advocate General is fully committed to aggressively 
addressing allegations of sexual assault and ensuring that commanders, 
victims, and accused airmen are appropriately advised on the legal 
issues. The Air Force is committed to training prosecutors and defense 
counsel to the highest standards. Base staff judge advocates work 
closely with the AFOSI special agents to ensure comprehensive 
investigations. Through the Senior Trial Counsel (STC) program, 16 
highly trained and experienced trial counsel assist base legal offices 
in all aspects of evaluating and preparing sexual assault cases and are 
detailed to represent the United States as the prosecutor in these 
cases. Seven of these STCs are dedicated to specializing in prosecution 
of sexual assault cases. Senior Defense Counsels provide assistance to 
local defense counsel and representation of accused airmen at trial. 
The Judge Advocate General believes that fully training and equipping 
both the prosecution and defense in these cases offers the best hope of 
optimal fact finding and professionalism in adjudicating sexual assault 
cases.
    Question. Do you consider the Air Force's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Answer. Current Air Force policies and procedures, particularly 
those on restricted reporting, are effective, available both at home 
and in deployed locations, and do more than allow victims confidential 
access to medical care. When coupled with the new victim to victim 
advocate privilege, the policies address many of the concerns victims 
have about coming forward and help protect the victims' 
confidentiality. The policies preserve the possibility of future 
prosecution by allowing victims to anonymously receive Sexual Assault 
Forensic Examinations (SAFEs), which are held for 5 years. Victims may 
convert their confidential restricted report at any time and 
participate in the military justice process. Restricted reporting 
allows for the preservation of evidence that would otherwise be 
unavailable and the Air Force is able to offer victims care and 
treatment that victims may have not accessed without this confidential 
option.
    Question. What is your view of the adequacy of resources in the Air 
Force to investigate allegations of sexual misconduct and to hold 
perpetrators accountable for their actions?
    Answer. I believe we are well positioned to execute this 
responsibility. The JAG Corps and AFOSI have developed a robust special 
victims capability that focuses specifically on teaming to jointly 
investigate and prosecute sexual assault offenses. For the 24 civilian 
AFOSI agents and 7 senior trial counsels working these cases, this is 
their primary mission. The Air Force developed training that JAGs will 
be attending jointly with AFOSI in fiscal year 2013. These are the Sex 
Crimes Investigation Training Program at the Federal Law Enforcement 
Training Center and the Advanced Sexual Assault Litigation Course at 
the Air Force JAG School. AFOSI and JAGs will attend both courses, 
focusing respectively on the investigation and prosecution stages.
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedures have been put into effect?
    Answer. Sexual assault victims who seek medical care or SAFEs in 
some States (i.e., California) cannot make a restricted report because 
State laws mandate reporting to law enforcement by healthcare 
providers. This limitation creates a ``have and have not'' reporting 
situation amongst military victims. However, the Air Force provides the 
same support and care for the victim whether they filed a restricted or 
unrestricted report.
    Question. What is your view of the appropriate role for senior 
military and civilian leaders in the Secretariat and the Air staff in 
overseeing the effectiveness of implementation of new policies relating 
to sexual assault?
    Answer. Senior military and civilian leaders at all levels, 
beginning at the Secretariat and the Air Staff, must focus on promoting 
an environment that prevents sexual assault. Eliminating this horrible 
crime is absolutely critical. The Secretary of the Air Force directed a 
Sexual Assault Prevention and Response Executive Steering Group (ESG) 
comprised of all the senior functional stakeholders to continually 
assess the program and provide advice for improvements in policy and 
procedures. If confirmed, I will work with the Secretary and these 
leaders to maintain a very clear focus on this issue.
    Question. Do you believe that sexual assault continues to be an 
underreported crime within the Department for the Air Force?
    Answer. Sexual assault is the most underreported violent crime in 
both the military and in American society and so I believe that it 
continues to be an underreported crime within the Air Force. The Air 
Force survey commissioned by Gallup on sexual assault also confirmed 
this view. The Air Force is focused on ways to increase reporting, from 
enhanced training throughout an airman's career, to unrestricted and 
restricted reporting options, to a wide range of medical, legal, and 
functional military services available to airmen who report being a 
victim of sexual assault.
    Question. If so, what are the barriers that discourage or prevent 
victims from coming forward?
    Answer. Shame, fear, stigma, and concern for potential re-
victimization continue to be the primary reasons victims do not come 
forward. To remove these barriers, victims must have confidence in the 
system and in their leadership to do the right thing. Air Force senior 
leaders, commanders and senior enlisted are personally involved and 
their leadership is instrumental to removing these barriers and 
ensuring victims receive the care and support they deserve. This effort 
includes the opportunity to request expedited transfers for those 
filing unrestricted reports, legal assistance for victims, the support 
of a victim advocate and specially trained investigators who are not a 
part of the chain of command.
    Question. If confirmed, what additional steps would you take to 
remove barriers to reporting sexual assaults?
    Answer. First, continued focus on eliminating sexual assaults. 
Prevention efforts include training and establishing command climates 
where sexual assaults are not tolerated. Thorough and timely 
investigation of cases independent of the chain of command provides 
reassurance to victims. Another important factor is holding 
perpetrators accountable. Finally, victims who file unrestricted 
reports are afforded the opportunity to request expedited transfers. 
This program provides the victim with safety and security which helps 
remove barriers to reporting.
    In order to aid in lessening these barriers, we must continue 
efforts to remove any perceived negative impact from coming forward 
after an assault. Allowing members to seek help and open communication 
with them is essential for leading the way in changing perceptions. 
Members need to know they will be supported regardless, and that 
service leadership is resolved to care for airmen.
    Question. In response to the Annual Report on Sexual Harassment and 
Violence at the Military Service Academies for Academic Program Year 
2011-2012, the Secretary of Defense wrote to the Service Secretaries 
and the Under Secretary of Defense for Personnel and Readiness stating: 
``Despite our considerable and ongoing efforts, this year's Annual 
Report on Sexual Harassment and Violence at the Military Service 
Academies demonstrates that we have a persistent problem. I am 
concerned that we have not achieved greater progress in preventing 
sexual assault and sexual harassment among academy cadets and 
midshipmen. These crimes and abhorrent behavior are incompatible with 
the core values we require of our Armed Forces' future officers. A 
strong and immediate response is needed.''
    What has the Air Force done to respond to the Secretary of 
Defense's requirement for a strong and immediate response?
    Answer. The Secretary of the Air Force and the Chief of Staff have 
made this a priority and have stated that the Air Force succeeds 
because of the professionalism and discipline of its airmen. Sexual 
assault undermines that professionalism. Each cadet now receives over 
12 hours of SAPR education training over the course of four years. 
Innovative training, to include scenario based programs with subject 
matter experts, is now a part of the USAFA SAPR curriculum. 
Additionally, the USAFA is in the process of instituting new 
initiatives. In April 2013, cadets will be leading the way in 
developing and running the USAFA's sexual assault awareness month 
(SAAM) activities and in the fall of 2013, the USAFA plans to institute 
Cadet Bystander Intervention Training (BIT).
    Additionally, in January, an integrated process team, to include 
members of the USAFA staff, met with subject matter experts and Air 
Force SAPR program managers to review SAPR training for all new 
accessions. Based on the recommendations of this group, the Air Force 
is capturing best practices while instituting standardized core 
competencies and learning objectives as directed by the Secretary of 
Defense.
    Question. If confirmed, what additional steps will you take to 
address the findings contained in this report?
    Answer. As the Secretary of Defense states, there is no place in 
the military for sexual assaults. If confirmed, I would focus on victim 
care and support, to include legal assistance. Victims should be able 
to trust their leadership to do the right thing. This includes focused 
efforts on investigations and prosecutions. This, of course, is on top 
of the training being implemented currently.
               independence of the judge advocate general
    Question. What are your views about the responsibility of The Judge 
Advocate General (TJAG) of the Air Force to provide independent legal 
advice to the Chief of Staff and Secretary of the Air Force and to the 
Air Staff, particularly in the areas of military justice and 
operational law?
    Answer. I believe it is critical for the Under Secretary to receive 
independent legal opinions from his senior uniformed judge advocate. 
Senior uniformed lawyers bring a wealth of experience and perspective 
shaped by years of working with commanders in the field. TJAG's ability 
to provide independent legal advice is statutorily guaranteed and 
vitally important to Air Force senior leader decisionmaking. Generally, 
I believe senior leaders are better informed to make the best decisions 
when they are aware of both The Judge Advocate General's advice and the 
advice of the Air Force General Counsel.
    Question. What are your views about the responsibility of staff 
judge advocates throughout the Air Force to provide independent legal 
advice to military commanders in the field and throughout the Air 
Force?
    Answer. Staff Judge Advocates (SJAs) are essential to the proper 
functioning of both operational and support missions. SJAs have a major 
responsibility to promote the interests of a command by providing 
relevant, timely, and independent advice to commanders, and this 
independence is reflected in statute (title 10, U.S.C., 
Sec. 8037(f)(2)). Convening authorities are required by statute (title 
10, U.S.C., Sec. 806) to communicate with their SJAs on issues related 
to military justice matters, which is critical to disciplined mission 
execution. In addition, commanders and other leaders rely on their 
staff judge advocates for advice on all types of legal and policy 
matters. SJAs offer legal advice independent of any particular agenda. 
I believe it is very important for commanders to continue to receive 
uniformed legal advice.
      air force end strength reductions and transition assistance
    Question. The National Defense Authorization Act for Fiscal Year 
2013 established an Active Duty Air Force end strength of 329,460, a 
reduction of 3,340 airmen from the fiscal year 2012 authorized level. 
The Air Force has informed the committee that it will achieve this 
reduction using only voluntary measures, and that transitioning airmen 
will benefit from a ``considerably expanded'' Transition Assistance 
Program (TAP).
    Please describe the voluntary measures that will be used to manage 
the Air Force's personnel reductions in fiscal year 2013, and whether 
the Air Force envisions using involuntary measures in fiscal year 2014 
and beyond.
    Answer. The Air Force active component authorized end strength in 
the National Defense Authorization Act for Fiscal Year 2013 is 329,460, 
requiring the Air Force to reduce 3,340 airmen from the fiscal year 
2012 authorized end strength of 332,800. Should sequestration go into 
effect and continue beyond 2013, the Air Force corporate process would 
evaluate and prioritize resources to maintain a balance between people, 
equipment and available funding. Continued budgetary shortfalls could 
lead to out-year funding cuts that might drive internal Air Force 
decisions to decrease force structure, which would undoubtedly lead to 
further end strength reductions.
    The reduction in end strength in fiscal year 2013 alone will 
require the Air Force to take continued force management actions to 
reduce the number of airmen serving the Nation while ensuring they 
maintain a high quality force. To do so, they will continue a multi-
year force management strategy of leveraging voluntary programs first, 
offering incentive programs where needed, and executing involuntary 
actions only if required. They currently have the full range of 
legislative authorities necessary to execute a force management program 
to meet congressionally mandated end strength.
    In fiscal year 2013 enlisted airmen in non-critical overage Air 
Force Specialty Codes will be offered time-in-grade, Active Duty 
service commitment, and enlistment contract waivers. They will also 
continue the expanded Palace Chase program. The Air Force also 
implemented the Temporary Early Retirement Authority for a second year, 
Date of Separation Rollbacks, reduced accessions, initial skills 
training separations and Career Job Reservation constraints.
    For officers, the Air Force expects no involuntary separations for 
fiscal year 2013 other than a limited number of initial skills training 
separations for officers. Voluntary programs will include time-in-
grade, Active Duty service commitment, and 10 versus 8 years of 
commissioned service waivers for certain year groups and overage career 
fields. They will also continue the Palace Chase program for eligible 
lieutenant colonels and below. Additionally, they will be offering the 
Temporary Early Retirement Authority program and the Voluntary 
Retirement Incentive program to the officer force in fiscal year 2013.
    For fiscal year 2014, the Air Force expects similar force 
management programs, but may include involuntary Selective Early 
Retirement Boards. However, given the current set of fiscal challenges 
and the uncertainty sequestration presents, I would continue to assess 
the need to pursue additional voluntary and involuntary force 
management authority actions to meet reassessed authorized end strength 
levels in fiscal year 2014 and beyond as approved by Congress and the 
Secretary of the Air Force.
    Question. Please describe the new TAP program and how it will help 
airmen transition back into civilian society during this period of 
unstable economic conditions.
    Answer. The Departments of Defense, Veterans Affairs and Labor 
launched a redesigned Transition Assistance Program (TAP) effective 21 
November 2012 to better prepare airmen for the transition to civilian 
life. The redesigned TAP is focused on reducing veteran unemployment 
levels which are 2 percent higher than the rest of the population and 
aims to bolster and standardize the transition support that airmen 
across the Armed Forces receive prior to separating or retiring from 
the Air Force in order to make them as employment ready as possible.
    The Veterans Opportunity to Work (VOW) Act of 2011 and the Veterans 
Employment Initiative (VEI) drove the new legislated TAP requirements 
to expand training and employment services for Active and Reserve 
component members who transition from the Air Force.
    DOD and its agency partners work closely with approximately 85 Air 
Force Installations (to include 2 Guard and 1 Reserve training hub), to 
coordinate delivery of transition services included in the redesigned 
TAP.
    TAP has been redesigned as a comprehensive, mandatory program that 
includes pre-separation counseling, a military to civilian skills 
review, VA benefits briefings, financial planning support, job search 
skills building, and an individual transition plan (ITP) preparation 
which will aid in a successful transition into a ``career ready'' 
civilian. The program will be renamed ``Transition GPS (Goals, Plans, 
Success)''.
    The new program features a 5-day workshop with further ``optional'' 
training tracks (Higher Education, Technical Training, and 
Entrepreneurship taught by the Small Business Admin) in addition to 
extensive one-on-one counseling.
    The ``target population'' of airmen who may need a higher level of 
support during their transition process has been defined as: (1) young 
airmen (18-24 years old); (2) those completing their first term of 
enlistment; (3) members involuntarily separated due to force reshaping; 
and (4) those separating rapidly.
    Eligible Reserve component airmen are also mandated to actively 
participate in the redesigned Transition Assistance Program. 
Eligibility includes all members of the Guard and Reserve who are 
separating after serving more than 180 days of continuous Active Duty.
    Spouses are encouraged to participate with the airman in all facets 
of the redesigned program.
    The Air Force is aggressively rolling out the redesigned TAP 
program to assist transitioning airmen with becoming as competitive as 
possible in civilian society during this period of unstable economic 
conditions.
                    personnel and entitlement costs
    Question. Military personnel costs, including health care, 
compensation, and retirement continue to soar and are becoming an ever 
increasing portion of the DOD and Air Force budgets.
    What actions do you believe can be taken to control the rise in 
personnel costs and entitlement spending?
    Answer. Military compensation is, and must remain, competitive to 
sustain the recruitment and retention of high caliber men and women to 
meet readiness requirements and accomplish our national security 
mission. If confirmed, I will remain committed to this goal. However, 
in light of the current economic crisis and overall reductions in 
defense spending, we must look at balancing personnel costs to avoid 
reductions to force structure and modernization efforts critical to the 
support of the warfighter and the defense of our Nation. I look at 
management of force structure as being a key element in controlling 
personnel costs. If confirmed, I will ensure that the Air Force 
continues to make difficult, but fiscally responsible decisions to 
implement force management programs that allow us to remain at 
authorized end strength levels. Additionally, I will pursue legislative 
and policy changes needed to ensure that the Air Force is able to 
operate as a total force with the most effective use of resources.
    Question. What is your assessment of the Air Force's use of 
military bonuses in both the Active and Reserve components?
    Answer. The bonus programs are among the most flexible and 
responsive force management tools to retain airmen in critical fields 
with high ops demand and low manning such as special operations, 
explosive ordnance, aircrew, intelligence, surveillance, and 
reconnaissance, RPA pilots and health professions. Although overall 
retention remains high, bonuses are necessary to target these critical 
skills for current health and as an investment in emerging missions. If 
confirmed, I would work to ensure that we are using bonuses only where 
necessary to maintain the proper force structure and skill sets.
    Question. What is your assessment of the Air Force's use of 
aviation career incentive pay or assignment incentive pay for unmanned 
aerial systems operators, both those who are rated pilots and those who 
are not?
    Answer. Aviation career incentive pays are an important 
compensation tool used to motivate and retain aviators operating manned 
and remotely piloted aircraft. As the demand for remotely piloted 
aircraft continues to grow, we will continue to rely on monthly 
incentive pays to attract officers and enlisted personnel who not only 
possess a unique skill set, but who work under challenging conditions 
to provide the Nation with an unparalleled combat capability. If 
confirmed, I will ensure that we continue to periodically review the 
efficacy of all aviation pays and bonuses to ensure we are fiscally 
responsible.
                             sequestration
    Question. What would be the impact on the Air Force if 
sequestration were to take effect on March 1, 2013, as currently 
required by law?
    Answer. The Air Force would not be able to eliminate the adverse 
impacts of sequestration to readiness or modernization or even 
substantially mitigate them. If triggered, the Air Force would ramp 
down spending while protecting wartime and readiness accounts for as 
long as possible. Additional programs would need to be restructured, 
reduced and/or terminated. The effects of sequestration would cause 
great harm to national security, both by the size of the reductions and 
the across-the-board nature of the implementation of those reductions. 
If triggered, the Air Force will also begin the deliberate programming 
process of prioritizing programs ensuring we continue to strive to meet 
the DOD Strategic Guidance.
    Question. What would be the specific impact on Air Force civilian 
and military personnel; on family programs; on morale, welfare and 
recreation programs; and on the delivery of health care to airmen, 
their families, and retirees?
    Answer. The Military Personnel Appropriation has been exempted from 
sequestration. Any civilian personnel actions taken would be based on 
specific guidance from OSD.
                           suicide prevention
    Question. The number of suicides in the total Air Force continues 
to be of concern to the Committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Air Force, the Air National 
Guard, and the Air Force Reserve, to prevent suicides and increase the 
resiliency of airmen and their families?
    Answer. Engaged leaders and communities are the key to suicide 
prevention. Although lower than comparable civilian rates, the Air 
Force's total force suicide rate has seen a slow but very concerning 
rise in the last several years. It is now at just under 16 per hundred 
thousand per year, and I am greatly concerned that we still lose about 
50 active duty airmen per year from suicide. Fortunately the Air Force 
has an effective program in place--one that is continually improving, 
targeting career fields at higher risk. The Air Force Suicide 
Prevention Program is a community-based approach that fosters a Wingman 
culture organized under commander-led committees of installation 
helping agencies. The program is composed of 11 elements of community 
and command involvement. Research shows that the Air Force suicide rate 
is lower when these 11 elements are fully engaged. This year, the Air 
Force is improving the annual self-assessment of those elements.
    The Air National Guard and Reserve Command airmen's suicide rates 
have been similar to those of active duty Air Force. Although not all 
Reserve component airmen are in contact with their units as regularly 
as those on Active Duty, their leaders have, and will continue to be 
fully engaged in their lives--there for them and their families when 
they are in crisis. Like the Active Duty units, the Air National Guard 
and Reserve Command both utilize these elements of the prevention 
program. In concert with supervisors, chaplains, and community 
resources, wing and regional directors of psychological health work to 
get these airmen the help they need in crisis.
                             family support
    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for Air Force personnel and their families, and, if confirmed, 
how would you ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. I understand that a primary concern for airmen and their 
family members is their ability to do the mission and simultaneously 
support their families. Specific areas of concern include access to 
quality specialized child care and education. Also, for those 
transitioning to the civilian sector, military members are concerned 
about being prepared for employment and/or continuing their education. 
Families are concerned about the civilian spouse finding employment as 
they relocate from installation to installation.
    I am aware there are DOD and Air Force programs that address these 
issues, such as the Transition Assistance Program (TAP), which has been 
recently enhanced by the Veteran Opportunity to Work Act of 2011. If 
confirmed, I will ensure a thorough review of all available resources 
to support valuable family programs.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and future reductions in end 
strength?
    Answer. I understand the Airman and Family Readiness Centers serve 
as a resource hub for Air Force families prior--to, during, and 
following deployments. The deployment programs the Airman and Family 
Readiness Center have in place for the airmen and family members are 
crucial in supporting the mission. DOD has funded valuable resources in 
Military Family Life Consultants that work in Air Force Family Support 
Programs to deal with family and life issues, child behavioral issues 
and school transition issues. I will ensure the Air Force programs are 
adequately supported with this valuable resource.
    Question. If confirmed, how would you ensure support to Reserve 
component families related to mobilization, deployment and family 
readiness, as well as to active duty families who do not reside near a 
military installation?
    The Air Force is a total force, and provides resources and support 
to all components through various Airman and Family and Child and Youth 
programs. These support programs are sustained through continued 
collaboration with the State Joint Base Board and other services.
    Geographically separated servicemembers (and their families) have 
immediate access to many resources online that enable them to remain 
connected to their units and support services.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. I will review current manpower and staffing for family 
programs. In keeping with current White House directives, I will 
support programs that enhance mission readiness.
    I would like to see sufficient staffing and training for family 
readiness staff as we partner with community organizations to continue 
building support for airmen and their families.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active Duty and Reserve personnel members and families 
assigned overseas, and personnel deployed in support of military 
training and operations.
    What challenges do you foresee in sustaining Air Force MWR 
programs, and, if confirmed, what improvements would you seek to 
achieve?
    Answer. MWR programs exist to provide Quality of Life (QOL) 
programs and services to airmen and their family members. There is a 
recognized correlation between QOL, readiness, and resilience, 
particularly in light of frequent and lengthy deployments.
    A top priority for the Air Force is to develop and care for airmen. 
I don't foresee any change to that focus. The Air Force's MWR programs 
are currently undergoing an enterprise-wide transformation to right-
size and ensure their currency and relevancy for airmen and their 
families.
    Without a doubt, MWR programs and services for military members and 
their families are critical to Air Force readiness and mission 
capability. As the Air Force advances MWR transformation, I will 
advocate for the Air Force to seek partnership opportunities with local 
communities to help ensure they provide the best support possible for 
the Air Force while embracing efficiencies and innovative ways of doing 
business.
    If confirmed, I will fully support the ongoing MWR transformation 
efforts to be a model of innovation, efficiency, and resource 
stewardship, geared toward meeting the needs of airmen and families now 
and in the future.
      balance between civilian employees and contractor employees
    Question. In recent years, the Air Force and the Department of 
Defense have become increasingly reliant on services provided by 
contractors. In many cases, contractor employees work in the same 
offices, serve on the same projects and task forces, and perform many 
of the same functions as Federal employees.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of the Air Force and 
the Department of Defense?
    Answer. I believe we must continue to ensure that inherently 
governmental functions are not outsourced and scrutinize those areas 
where the distinction is blurred, and could result in the potential for 
wasteful spending. If confirmed, I will work with the Secretary of the 
Air Force and leaders across the Air Force to assess this matter to 
ensure compliance with the law and with the President's policy. I 
believe there is a great deal to do in this area, and will bring 
lessons learned from the Department of the Navy, where we have made a 
substantial and successful effort to better shape the balance between 
the civilian and contractor workforce.
    Question. In your view, has the Air Force become too reliant on 
contractors to perform its basic functions?
    Answer. The Federal Acquisition Regulation (FAR) and title 10, 
U.S.C., section 129, restrict the use of personal services contracts. I 
believe these regulations best serve the interests of the Air Force. If 
confirmed, I would continue to work with the Secretary of the Air Force 
and leaders across the Air Force to ensure compliance with applicable 
law and policy.
    I agree with the view expressed in President Obama's March 4, 2009 
memorandum on government contracting, that states excessive reliance by 
executive agencies on sole-source contracts create a risk where 
taxpayer funds could be inefficiently spent and otherwise not service 
the needs of the Federal Government. I would work with the Secretary of 
the Air Force and leaders across the Air Force to assess this matter to 
ensure compliance with the law and with the President's policy. I 
believe there is a great deal to do in this area, and will bring 
lessons learned from the Department of the Navy, where we have made a 
substantial and successful effort to better shape the balance between 
the civilian and contractor workforce.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of the Air Force?
    Answer. The Federal Acquisition Regulation (FAR) and title 10, 
U.S.C., section 129, restricts the use of personal services contracts. 
I believe these regulations best serve the interests of the Air Force. 
If confirmed, I would continue to work with the Secretary of the Air 
Force and leaders across the Air Force to ensure compliance with 
applicable law and policy. I believe there is a great deal to do in 
this area, and will bring lessons learned from the Department of the 
Navy, where we have made a substantial and successful effort to better 
shape the balance between the civilian and contractor workforce.
    Question. Do you believe that the Air Force and the Department of 
Defense should undertake a comprehensive reappraisal of ``inherently 
governmental functions'' and other critical government functions, and 
how they are performed?
    Answer. The Department's ``sourcing'' of functions and work between 
military and civilians, or through contracted services, must be 
consistent with workload requirements, funding availability, readiness 
and management needs, as well as applicable laws and statutes. 
Consistent with existing statutory requirements (such as FAIR Act and 
title 10, U.S.C., section 2330a), and the total force mix of military, 
civilian, and contracted support, I believe the Air Force should pursue 
a mitigation of risk and the appropriate consideration of costs. Even 
during this period of constrained defense budgets, the Air Force should 
ensure that military or Federal civilians are performing all inherently 
governmental jobs, and that sufficient levels of civilians are 
available to perform critical oversight, management, and readiness 
functions of the Air Force. I do not believe a comprehensive review of 
``inherently governmental functions'' is necessary, but I do believe 
more rigorous oversight where we apply contracted services is necessary 
across the Department.
    Question. If confirmed, will you work with other appropriate 
officials in the Department of Defense to address these issues?
    Answer. If confirmed, I will continue to collaborate with other Air 
Force officials to ensure these matters are addressed in the best 
interest of the Air Force and the Department of Defense.
    Question. Section 955 of the National Defense Authorization Act for 
Fiscal Year 2013 requires a 5 percent reduction in anticipated funding 
levels for the civilian personnel workforce and the service contractor 
workforce of the Department of Defense, subject to certain exclusions.
    What impact do you expect the implementation of section 955 to have 
on the programs and operations of the Air Force?
    Answer. Based on the Air Force's understanding of section 955's 
requirement for DOD to reduce at least the same percentage reduction in 
anticipated funding levels for the civilian personnel workforce and 
service contractors as compared to reductions in military pay levels, 
and contingent on receipt of DOD's efficiencies plan, the Air Force is 
working the following actions:
    Civilian--The Air Force, as part of a larger OSD-led effort, 
conducted a comprehensive review of capabilities performed by its 
civilian workforce. During the course of this review, the Air Force 
identified areas where it could most prudently accept risk, while still 
being able to accomplish its mission. The result of this analysis led 
to a 2.8 percent reduction to Air Force civilian manpower over the next 
five years, exceeding the 2.3 percent reduction to Air Force military 
manpower over the same time period.
    Contractor--The Air Force, as part of the OSD led Limitation on 
Aggregate Annual Amount Available for Contracted Services (section 808 
of the NDAA for Fiscal Year 2012), has worked to ensure that contract 
obligations for fiscal year 2012 and fiscal year 2013 remain at, or are 
lower than, what was requested for contracted services in the fiscal 
year 2010 President's budget. This, coupled with previously identified 
service contract efficiencies (Knowledge Based Services, Advisory 
Studies, Service Support Contractors, and Program Mission 
Augmentation), should meet the intent of section 955.
    Question. What steps will you take, if confirmed, to ensure that 
section 955 is implemented in a manner that is consistent with the 
requirements of section 129a of title 10, U.S.C., for determining the 
most appropriate and cost-efficient mix of military, civilian, and 
service contractor personnel to perform Air Force missions?
    Answer. If confirmed, I would ensure the Air Force sufficiently 
determines the most appropriate and cost-effective mix of military, 
civilian, and contracted services by reviewing the performance of 
functions identified as core or critical to the mission of the 
department, consistent with the workload analysis and risk assessment 
required by sections 129 and 129a of title 10.
    Question. What processes will you put in place, if confirmed, to 
ensure that the Air Force implements a sound planning process for 
carrying out the requirements of section 955, including the 
implementation of the exclusion authority in section 955(c)?
    Answer. If confirmed, I will work within the Air Force to put a 
process in place to determine core or critical requirements that 
considers critical occupations in the Acquisition Workforce Plan, 
personnel employed at facilities that provide core logistics 
capabilities, medical services, and maintenance and repair of military 
equipment. Civilian personnel workforce or service contractor workforce 
performing other critical functions may be identified as requiring 
exemptions or exclusion authority in the interest of the national 
defense.
    Question. Section 808 of the National Defense Authorization Act for 
Fiscal Year 2012 requires the Department of Defense to implement a 
freeze on spending for contract services, comparable to the freeze on 
civilian personnel required by the efficiencies initiatives.
    What is your understanding of the impact that the freeze on 
spending for contract services has had on the Air Force?
    Answer. I understand the Air Force began aggressively reducing 
spending on contracted services in fiscal year 2009 and continues while 
ensuring continued mission capability. Decisionmakers must balance 
acceptable risk and available budgets to ensure future mission 
capability as the reductions are made.
    Specific to fiscal year 2012 and fiscal year 2013, the period 
covered by the NDAA, my understanding is the limitation is a broad 
brush that puts an overall ceiling on not only management support 
contracts, but also other mission critical contracts such as Weapon 
System Sustainment, Ranges, and Critical Infrastructure. If the 
limitation is so broad that it encompasses all contracts, there may be 
unintended consequences.
    Question. What is your understanding of Air Force plans for 
spending for contract services over the next 5 years?
    Answer. The Air Force will continue to make tough decisions on 
spending cuts. Air Force leaders must balance impacts to mission 
capability with the need for reducing spending. I believe additional 
emphasis on market research is critical for us to fully understand the 
industrial base and that we effectively use competition as a forcing 
function to reduce the services spend, while not sacrificing mission 
accomplishment.
    Question. What is your view on the feasibility and advisability of 
further reductions in spending for contract services over the next 5 
years?
    Answer. Budget cuts must be made carefully and with full 
understanding of the accepted risks and impacts to mission capability. 
I believe further reductions are necessary, but should be applied 
tactically as a result of the analysis of risks to mission capability 
and effectiveness.
                      legislative fellows program
    Question. Each year, the Services assign mid-career officers to the 
offices of Members of Congress under the Legislative Fellows Program. 
Upon completion of their legislative fellowships, officers are supposed 
to be assigned to follow-on positions in their services in which they 
effectively use the experience and knowledge they gained during their 
fellowships.
    What is your assessment of the value of the Legislative Fellows 
Program to the Air Force and to the career development of the officers 
involved?
    Answer. I strongly support the Legislative Fellows program and very 
much appreciate the continued support we get from Members of Congress 
for the program. It provides mid-career officers, civilians, and now 
senior noncommissioned officers, a valuable learning experience. The 
program exposes top-tier Air Force officers, civilians and senior 
noncommissioned officers to the inner workings of the legislative 
process. Additionally, the relationships they form with civilian 
leaders and their staffs in Congress benefit both the fellow and the 
Air Force by enhancing open dialogue and communication between the Air 
Force and Congress.
    Question. What is your assessment of the Air Force's utilization of 
officers who have served as legislative fellows?
    Answer. My understanding is that the Air Force makes every effort 
to assign them to follow-on positions which use their legislative 
experience. Most fellows who are not immediately assigned to a 
legislative-related position are selected for command and use their 
legislative experience in that capacity and later in their career. If 
confirmed, I will continue to emphasize appropriate follow-on 
assignments which maximize the skills developed during their time on 
the Hill.
    management and development of the senior executive service (ses)
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management by senior executives.
    What is your vision for the management and development of the Air 
Force senior executive workforce, especially in the critically 
important areas of acquisition, financial management, and the 
scientific and technical fields?
    Answer. I believe that the members of the Senior Executive Service 
are an integral and critical component to the continued success of 
these vital career fields. As I understand it, the Air Force manages 
their Senior Executive Service workforce through a comprehensive and 
strategic corporate approach. The Air Force's deliberate lifecycle 
management of their executive cadre facilitates their recruitment, 
development, compensation, succession planning and retention. From what 
I have seen, the Air Force is particularly effective at making sure its 
senior civilian leaders have a healthy balance of experience inside and 
outside of the Air Force headquarters. If confirmed, I will continue to 
support this approach.
    Question. Over the last 10 years, the Air Force budget has almost 
doubled, but the number of senior executives in the Department of the 
Air Force has remained almost unchanged.
    Do you believe that the Air Force has the number of senior 
executives it needs, with the proper skills to manage the Department 
into the future?
    Answer. I have not yet had the opportunity to review the number of 
Air Force senior executives and their associated proficiency levels in 
critical competencies. If confirmed, I will look into the issue.
        remotely piloted aircraft pilot promotion and education
    Question. S. 3254, the Senate Armed Services Committee's version of 
the National Defense Authorization Act for Fiscal Year 2013, as 
reported out by the committee, included a provision that would require 
a report from the Secretary of the Air Force and the Chief of Staff on 
the promotion rates and educational and training opportunities for 
pilots of remotely piloted aircraft (RPA). The report would need to 
explain the causes for the persistently lower rates of promotion and 
education over the last 5 years, the impact of these trends, and the 
Air Force's plans to take corrective action.
    Are you familiar with the adverse trends in RPA pilot promotion and 
education rates?
    Answer. Yes, I am familiar with these issues and understand the Air 
Force has initiatives in place to improve the health of the RPA career 
field as they continue to aggressively monitor progress. The Air Force 
has addressed the below Air Force average promotions (11-19 percent 
behind the Air Force average) and completion of Advanced Academic 
Degrees and Professional Military Education (PME) by improving in-
residence opportunities and promotion board packages that address the 
RPA community's unique challenges.
    Question. Do you share the committee's concerns about these trends?
    Answer. Yes. If confirmed, I will keep RPA a key focus area as we 
continue to grow this capability that is instrumental in our current 
and future success as the world's dominant air power.
    Question. How would you expect to contribute to fixing this 
problem?
    Answer. If confirmed, I will keep my finger on the pulse of the RPA 
community through functional, operational and resource management 
leadership. I will ensure current plans in place, aimed at leveling 
promotion and educational opportunities through targeted messaging, 
improved resourcing, and focused retention strategies, have the desired 
impacts and take swift action if they prove to be ineffective. With 
such a critically important career field, the Air Force must get it 
right at the beginning and build not just a population that is 
effective now, but one that is competitive, sustainable, and razor-
sharp in the execution of their duties in the years ahead.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                           eglin test mission
    1. Senator Nelson. Mr. Fanning, in 2011, the Air Force announced a 
reorganization of the Air Force Materiel Command (AFMC) and aimed to 
reduce overhead costs and redundant layers of staff. The NDAA for 
fiscal year 2013 included an amendment which required AFMC to submit an 
assessment of the efficiencies and effectiveness associated with this 
reorganization. Will you commit to keeping a close eye on the recent 
efficiencies initiatives at AFMC started by General Wolfenbarger, as 
well as to visit Eglin Air Force Base to see the test mission first 
hand?
    Mr. Fanning. Yes. If confirmed as the Under Secretary of the Air 
Force, one of my primary focus areas will be to ensure the Air Force is 
structured properly, with the ability to respond to the warfighters' 
needs as quickly and efficiently as possible. Given the current fiscal 
realities the Department faces now and in the future, we must make 
every effort to streamline and eliminate redundant layers of overhead, 
at all levels. This is precisely the intent of the Air Force Materiel 
Command (AFMC) reorganization.
    The reorganization eliminated over 1,000 civilian positions, and is 
expected to generate at least $100 million in annual savings, while 
concurrently reshaping the Command to align each major mission area 
under one center commander. Additionally, AFMC's efforts reduced the 
number of direct reports from 12 to 5. Since it was implemented on 1 
October 2012, it is well on its way to full operational capability 
later this year.
    With regard to visiting Eglin Air Force Base, I absolutely commit 
to visiting the base as soon as my schedule allows. I am anxious to see 
the test mission and the other aspects of the Air Force mission 
resident at this location.

                             kc-46a tanker
    2. Senator Nelson. Mr. Fanning, on January 9, 2013, the Air Force 
released the initial round of basing for the new tanker, the KC-46A. 
The top four bases under consideration are located in the center of the 
country, as well as the west coast. U.S. Southern Command (SOUTHCOM) 
leads the counterdrug mission and, every year, drug interdiction on the 
high seas accounts for the removal of 200 tons of cocaine from the U.S. 
supply, which is 10 times that which is removed by U.S. law 
enforcement. I do not believe SOUTHCOM was consulted when considering 
the first round of basing for the KC-46A and deserves consideration. 
Would you commit to looking at the requirements of SOUTHCOM for the 
next round of basing decisions for the KC-46?
    Mr. Fanning. Yes. As I understand it, the combatant commands 
(COCOMs) identify their air refueling requirements to the Air Force 
through various Joint strategic planning efforts. In turn, the Air 
Force's strategic basing process provides a methodology whereby basing 
decisions are consistent with Air Force operational requirements which 
are designed to meet the combatant commanders' needs. If confirmed, I 
will ensure that these requirements, including those of SOUTHCOM, are 
considered as part of the basing decisions.
                                 ______
                                 
             Question Submitted by Senator Claire McCaskill
                             sexual assault
    3. Senator McCaskill. Mr. Fanning, DOD under former Secretary 
Panetta's leadership, implemented a number of initiatives to try to 
curb sexual assaults in the military--a problem he stated could be six 
times greater than reported--and we have seen both military and 
civilian leaders acknowledge that sexual assault is a problem that 
affects the recruitment, retention, and readiness of our Armed Forces. 
This committee has taken up the issue of sexual violence in the 
military and has implemented some reforms in the National Defense 
Authorization Act, most recently in fiscal year 2013.
    In the advance policy questions you were asked: what are the 
barriers that discourage or prevent victims from coming forward and 
what additional steps would you take to remove barriers to reporting 
sexual assaults? You responded, ``Shame, fear, stigma, and concern for 
potential revictimization continue to be the primary reasons victims do 
not come forward. To remove these barriers, victims must have 
confidence in the system and in their leadership to do the right thing. 
Air Force senior leaders, commanders, and senior enlisted are 
personally involved and their leadership is instrumental to removing 
these barriers and ensuring victims receive the care and support they 
deserve.'' You also said, ``Another important factor is holding 
perpetrators accountable.'' Yet last week, an officer convicted only 4 
months ago of aggravated sexual assault by a jury of officers had all 
the charges dismissed by the convening authority, Lieutenant General 
Craig Franklin, and he has been reinstated.
    Lieutenant General Franklin's decision to dismiss the charges sends 
a message to every member of the Air Force that if they are a survivor 
of sexual assault they might not find justice in the military justice 
system. If confirmed, how will you, as a senior civilian leader in the 
Air Force, help restore confidence to the members of the Air Force 
after this incident?
    Mr. Fanning. Sexual assault is a crime and a matter of serious and 
continuing concern; eliminating sexual assault in the military is a 
high priority for the Air Force leadership. If confirmed, I will work 
closely with Air Force leaders, as well as outside experts, to ensure 
our sexual assault prevention and response programs are the best 
available--we have a responsibility to all airmen to make this so. This 
will be a priority of mine, and something I would speak out about at 
every appropriate opportunity.
    I continue to believe shame, fear, stigma, and concern for 
potential re-victimization are the primary reasons victims do not come 
forward and that to remove these barriers, Air Force leadership must be 
personally involved. Creating an environment where all Airmen 
understand this crime has no place in the Air Force is a vital step in 
building confidence in the military justice system. In December 2012, 
the Chief of Staff met with all Air Force wing commanders and stressed 
the importance of their leadership in tackling this problem. This was 
followed by an Air Force-wide inspection conducted to assess and adjust 
the command climate across the Air Force.
    Further, victims must be encouraged to report this crime and be 
fully supported when they do. The Air Force's newly established Special 
Victim's Counsel Program is an example of the importance Air Force 
leaders place on victim support. By providing victims of sexual assault 
with their own specially trained, independent military attorney, 
victims now have someone to specifically help them navigate the 
investigatory and adjudicatory phases of a case. I believe this will 
have a profound impact on reducing barriers victims currently face.
    If confirmed, I would closely monitor Air Force effects to ensure 
they were making the necessary progress and to look for additional 
measures we could take to accelerate progress.
                                 ______
                                 
            Question Submitted by Senator Angus S. King, Jr.
                        air force tanker program
    4. Senator King. Mr. Fanning, if you are confirmed and once you 
assume your duties as Under Secretary of the Air Force, I would like 
for you to provide information on the Air Force's plans for sustaining 
its air refueling capabilities in the future. I would like to see 
included in this information an explanation for how the initial 179 KC-
46A aircraft will be fielded, and the follow-on plans for replacing the 
remainder of the KC-135 fleet. I would also like the Air Force's 
assessment of the role the 101st Aerial Refueling Wing (ARW) at Bangor, 
ME, will play in the future, and the earliest the 101st ARW could be in 
line to field new aircraft, including the KC-46A.
    Mr. Fanning. If confirmed, it will be an early priority of mine to 
better understand the Air Force's Strategic Basing process so as to 
have more fidelity into the initial KC-46A basing actions. I commit to 
providing answers to these questions at the earliest opportunity.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                              efficiencies
    5. Senator Inhofe. Mr. Fanning, for years DOD has embarked on 
several efficiency campaigns. Both Secretaries Gates and Panetta have 
included efficiency initiatives as part of the President's budget 
submission. Do you believe DOD has adequate tools to track 
efficiencies?
    Mr. Fanning. Yes. Efficiency initiatives are routinely tracked by 
the Office of the Secretary of Defense (OSD) Comptroller and DCMO, who 
report then to the Deputy Secretary of Defense in his role as Chief 
Management Officer of the Department of Defense (DOD). In my role as 
DUSN/DCMO, I have had responsibility for Department of the Navy 
efficiency initiatives. Working closely on these efforts with the Army 
and Air Force has led me to believe that the Air Force has a strong 
process in place and adequately resources their tracking mechanism. If 
confirmed, I will take a closer look to make sure my initial 
impressions are justified.
    The work we are doing across the Services in the area of achieving 
clean audit, as well as the work directed by the OSD Comptroller on 
Standard Lines of Accounting, will certainly help improve the quality 
of data we have to understand, control and reduce the cost of business 
operations.

    6. Senator Inhofe. Mr. Fanning, how successful has DOD been in 
realizing the efficiencies already assumed in previous budget requests?
    Mr. Fanning. From my assessment, DOD overall has been largely 
successful in realizing the efficiencies already assumed in previous 
budget requests. Specifically in the Air Force, a $33 billion 
efficiency objective was set in the initial round of efficiency 
targets. The Air Force is currently managing and tracking $43 billion 
in efficiencies from fiscal year 2012 to fiscal year 2017. The first 
year of Service-established targets was 2012 and the Air Force recorded 
savings of over $6 billion against a target of $4.8 billion. Included 
in the 2012 efficiency savings are reductions of 16.5 thousand 
civilian positions with 19.9 thousand removed by 2016. However, some 
of the more difficult efficiencies were booked in the out years and 
will require continued and concerted leadership attention to achieve.

    7. Senator Inhofe. Mr. Fanning, what lessons have you learned in 
the assumptions used in taking efficiencies?
    Mr. Fanning. There have been many lessons learned from the 
efficiencies. First and foremost, many of the assumptions made in 
taking efficiencies failed fully to take into account the priorities of 
external stakeholders, to include local communities and congressional 
priorities.
    Second, in reducing the size of organizations, we often assume that 
the targeted organizations will identify mission to cut. We have 
learned that it is very hard for organizations themselves to identify 
this mission. It requires sustained leadership involvement to direct 
what mission is no longer a priority, and to work with relevant 
stakeholders to eliminate the requirement for that mission.
    Finally, leadership must stay involved long after the efficiencies 
are booked. It requires oversight to ensure that cuts do not grow back 
and that the hard work of actually achieving the efficiencies is not 
replaced by components offering offsets in their place.

                           acquisition reform
    8. Senator Inhofe. Mr. Fanning, for the past several years, the 
Chiefs of the individual Services have repeatedly stated requirements 
creep is one of the major factors creating increased costs and delays 
in the acquisition of weapon systems. Specifically, additional 
capability requirements continue to be added during the development of 
weapons systems. Among other difficulties created by additional 
requirements is the redesign, and even rebuilding, of weapons systems. 
These concerns continue despite the fact the Joint Requirement 
Oversight Council must approve of any requirements changes. Therefore, 
what additional steps is DOD using to ensure requirements creep is 
reduced and to reform the Joint Capabilities Integration Development 
System?
    Mr. Fanning. The Air Force has implemented several acquisition and 
requirements initiatives focused on controlling both requirements creep 
and program costs. As a result, the Air Force implemented a deliberate 
effort to reduce the number of mandatory key performance parameters 
(KPPs), limit requirements objectives, better translate capability 
requirements into system specifications, and improve oversight of cost 
and schedule drivers at key program reviews.
    The data shows that the number of KPPs has trended down since 2009. 
KPPs averaged 6.1 per program in 2009 and 4.6 per program in 2012. To 
further control potential program cost growth and requirements creep, 
the Air Force implemented Headquarters Air Force guidance that limits 
use of objective values in all Air Force requirements documents.
    Requirements creep oftentimes occurs during the translation of 
operational capability requirements into derived system level 
requirements or specifications. To ensure system requirements documents 
(SRD) are accurate, the Air Force directed requirements sponsors to 
work with the program offices and provide formal coordination on 
generated SRD. The Air Force is also conducting an earlier and more 
robust cross-functional review of operational and derived requirements 
to inform the acquisition strategy prior to release of the final 
Request for Proposals.
    Finally, the Air Force Configuration Steering Board (CSB) process 
is undergoing enhancements to ensure senior leadership reviews 
requirements cost drivers and affordability impacts at CSB reviews. 
Although CSB reviews are not part of the formal requirements process, 
they include mandatory representation from requirements and acquisition 
stakeholders to stimulate informed discussions on how requirements 
impact program cost and schedule.

                 civilian furloughs under sequestration
    9. Senator Inhofe. Mr. Fanning, under sequestration, DOD will 
furlough civilian personnel for 22 days through the end of this fiscal 
year. Employees will suffer an 8 percent pay cut, and many of them will 
have a hard time making ends meet. We know that 86 percent of 
appropriated fund employees reside outside of the Washington, DC area. 
Most States will be affected by the furloughs. In Oklahoma, almost 
24,000 civilian employees will be furloughed under sequestration. Many 
of them are Air Force civilians. DOD estimates it will cost those 
employees in my State approximately $129 million. If sequestration 
occurs, what will the Air Force do to minimize the impact on civilian 
employees?
    Mr. Fanning. Due to the reality of sequestration, the Air Force 
immediately took actions to significantly slow spending in order to 
operate within mandated budget limitations. As a last resort, DOD 
elected to implement furlough. By scheduling furlough days in a 
discontinuous manner, the 14 days are spread throughout the remainder 
of the fiscal year to mitigate the financial impact to the civilian 
workforce. In spreading the furlough to roughly 1 day a week, civilians 
are ensured of earning at least 80 percent of their pre-deduction pay 
during the furlough period, which reduces the impact on valuable 
medical coverage, life insurance, and long-term care insurance 
coverage.
    The Air Force also ensured any sequestration actions taken were not 
permanent and potentially reversible in the event the crisis suddenly 
ends. Implementing furlough in a discontinuous manner allows 
flexibility if the budget impasse is resolved, in which case the Air 
Force could immediately cease with any remaining furloughs in fiscal 
year 2013.

    10. Senator Inhofe. Mr. Fanning, does the Air Force have stress 
reduction programs in place to help civilian employees get through 
these difficult times?
    Mr. Fanning. The Air Force is fully committed to supporting 
civilian employees during these difficult times, and we have several 
programs at their disposal. To the maximum extent possible, Air Force 
medical mental health professionals will be available to provide stress 
management and reduction programs to our civilian airmen on a space-
available basis. Additionally, Air Force Airman and Family Readiness 
Centers provide wellness programs for Airmen, to include civilians and 
their family members. Each Air Force base has an Employee Assistance 
Program with capacity to help our employees through this difficult 
time. Air Force civilian employees may also request to receive 
assistance from the Federal Employee Education and Assistance Fund. 
Finally, many civilian employees are members of the Guard or Reserve or 
are retired servicemembers, and may be eligible to request additional 
support from the Air Force Aid Society.
    If confirmed, I will remain committed to providing every possible 
avenue for support to civilian Airmen affected by furlough and will 
share those options with them as quickly as possible. However, I also 
realize support programs may not fully compensate them for the lost 
income from 22 days of without pay. Therefore, the Air Force must 
encourage civilian employees to plan now for the potential reduction of 
income. Official notification of any furloughs would come through their 
chain of command.

                        aging fleet of aircraft
    11. Senator Inhofe. Mr. Fanning, our Air Force has been 
continuously engaged in combat operations for over 2 decades. It is 
operating the oldest fleet of aircraft in its history:

        <bullet> Air Force bombers--35 years old on average;
        <bullet> Air Force fighters--28 years old on average;
        <bullet> Surveillance aircraft--over 30 years old on average; 
        and
        <bullet> Transport and tanker aircraft--over 40 years old on 
        average with tankers projected to be 70-80 years old before 
        they are retired.

    Given the projected defense budgets, that fleet will continue to 
age. What are your concerns about this aging fleet and decreasing 
budgets?
    Mr. Fanning. Given the outlook for future defense budgets, the 
biggest concerns associated with the Air Force's aging aircraft are 
keeping them operationally viable given advanced capabilities already 
demonstrated by potential adversaries and the increasing costs 
associated with maintaining them. Both of these absorb available 
funding that could otherwise be used to fund programs with more direct 
readiness impact, such as flying hours and training ranges. These 
factors, coupled with over 2 decades of ongoing operations and the 
resulting reduced training opportunities, have led to a steady decline 
in full spectrum mission readiness. The ability of the Air Force to 
continue to modernize and recapitalize capabilities is critical to 
maintaining its ability to meet Defense Strategic Guidance, 
particularly in highly contested environments.

    12. Senator Inhofe. Mr. Fanning, what is the impact of sustaining 
aging equipment on our ability to procure new equipment?
    Mr. Fanning. Every year the Air Force must carefully balance its 
funding between sustaining aging equipment and investing in new 
equipment. This period of fiscal constraint makes the attempt to 
balance sustainment and investment even more difficult. As the Air 
Force defers investments in new equipment, and as sustainment costs for 
older equipment increase, the competition for equipment 
recapitalization resources intensifies.

    13. Senator Inhofe. Mr. Fanning, do you think we have reached the 
point with any of our current equipment that the business case analysis 
recommends we procure new equipment but, due to a lack of funds, we are 
forced to sustain the existing equipment?
    Mr. Fanning. Yes, I believe that for some of our equipment, we may 
have reached the point where the business case analysis justifies 
replacement, but funding constraints force us to sustain the legacy 
system in lieu of modernizing. Where this is the case, we run the risk 
of a ``death spiral'' where operating and support costs continue to 
rise, crowding out opportunities to modernize. However, 
recapitalization decisions are complex and new equipment does not 
always cost less to sustain. Therefore, every recapitalization decision 
should be carefully evaluated using sound business case analysis that 
fully considers life cycle cost (investment, operations, and support) 
and capability.

    14. Senator Inhofe. Mr. Fanning, what impact will the Air Force's 
inability to develop and procure new aircraft have on its readiness 10 
years from now?
    Mr. Fanning. The Air Force's legacy fleet will continue to become 
more expensive to maintain as it approaches and exceeds programmed life 
expectancy, likely causing reduced aircraft availability for both 
training and operational use. Further, many of the aircraft in the Air 
Force inventory today have reached the point where further 
technological upgrades will provide only minimal improvement against 
current threats and leave them ill-equipped for future combat 
environments.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                       f-35 joint strike fighter
    15. Senator Chambliss. Mr. Fanning, the F-35 Joint Strike Fighter 
(JSF) has experienced several delays in its acquisition process. The F-
16, one of the more successful air platforms, was fraught with 
engineering delays as well. DOD has spent massive amounts of funding on 
the program and it is an essential piece for our military dominance in 
the future. As we approach the next phase of defense strategy with the 
shift to the Asia-Pacific and increased tensions in historical hot 
spots, it is imperative that we maintain air superiority throughout 
this transition. To do so, the F-35 JSF program's success is vital. Is 
the Air Force committed to seeing this project to fruition?
    Mr. Fanning. The F-35 represents the future of the Air Force 
fighter fleet. It will provide critical capabilities required to 
accomplish Air Force missions in the threat environment of the future, 
and enables true joint and coalition operations. As Secretary Donley 
stated in his testimony before the Senate Armed Services Committee, the 
Air Force remains fully committed to the F-35 Program.

    16. Senator Chambliss. Mr. Fanning, as Under Secretary, what will 
you do to ensure the program is successful and timely in its 
acquisition and production?
    Mr. Fanning. The Joint Program Office (JPO) has made important 
progress in identifying program efficiencies and pursuing cost 
avoidance efforts, and the Air Force has stated that it will continue 
to fully fund the program to the cost estimate, and is evaluating the 
most effective production ramp profile to maximize learning curve 
savings.
    If confirmed, I will support these initiatives and more deeply 
involve myself in the work necessary to support the JPO's efforts to 
reduce operations and sustainment costs over the lifecycle of the 
program.
                                 ______
                                 
               Questions Submitted by Senator Mike S. Lee
                                biofuels
    17. Senator Lee. Mr. Fanning, in 2012, the Navy undertook the 
expensive ``Great Green Fleet'' demonstration, purchasing 450,000 
gallons of biofuel at $26 a gallon for a total of $12 million spent on 
fuel for just one demonstration. The Air Force similarly spent $639,000 
on 11,000 gallons of biofuels for a demonstration in 2012, costing the 
taxpayer $59 per gallon. With the prospect of sequestration and a much 
tighter defense budget in coming years, do you believe that the 
military should continue such large-scale demonstrations using 
biofuels? Please provide a yes or no answer, and if answering yes, 
please provide a justification as to why programs involving biofuels 
should be prioritized over other research and development programs.
    Mr. Fanning. Yes. It is my understanding that the Air Force 
investments in biofuels is limited to certifying fuels that are in the 
pipeline or are planned to be in the pipeline, but that there are no 
plans to purchase in large quantities until it is cost effective. AF 
biofuels purchases are not designed to create a market for those fuels, 
but to better understand what alternatives work with existing AF 
platforms.
    The Air Force should continue testing and certifying any 
alternative aviation fuels that have the potential to be produced cost-
competitively by private industry and that meet Air Force 
specifications. Alternative fuels provide options for global mobility--
rather than being tied to a specific fuel, the Air Force can use what 
is available. The Air Force is in the process of converting its primary 
jet fuel used in the continental United States from JP-8, the current 
military specification, to the more readily available commercial Jet A 
fuel. Since the cost of Jet A is less than JP-8, the Air Force 
estimates potential savings of $40 million annually in fuel procurement 
costs (Jet A with additives costs two cents ($0.02) a gallon less than 
JP-8). As part of this conversion, however, the Air Force will need to 
ensure none of the alternative fuels identified in the commercial 
specification will negatively impact flying operations. The purpose of 
purchasing 11,000 gallons of alcohol-to-jet fuel was to test and 
certify the Air Force fleet to ensure it could operate safely and 
effectively on such a fuel blend, which is anticipated to have high 
commercial viability.

                       future acquisition process
    18. Senator Lee. Mr. Fanning, with the prospect of sequester cuts 
to DOD this year and continuing cuts through the next 9 fiscal years, 
we must change the way that acquisitions are conducted in order to be 
more efficient and cost effective. Necessary acquisitions, such as our 
next generation fighter jet, have been plagued by delays and budget 
overruns. What lessons have been learned so far from the F-35 program 
that you will implement in future acquisitions?
    Mr. Fanning. The F-35 program has provided several lessons 
applicable to future programs. First, while introducing a minor amount 
of concurrency to a program can streamline the transition from 
development to production, reduce overall costs and increase 
efficiency, starting production of the end item too early in the 
process can significantly increase the risk to the government in the 
form of additional costs and excessive rework. In today's highly 
technical world, early focus on software development, to include 
appropriate controls and oversight, must be enacted. Software efforts 
should be fully resourced and appropriate controls levied against the 
contractor to ensure the use of industry best practices. DOD and the 
Air Force recognize the importance of detailed cost estimates which 
improve the government's ability to negotiate contracts with the 
appropriate levels of risk and benefit for both the government and the 
contractor. The F-35 program also demonstrates the value of strong 
government oversight of military contracts. The Air Force is starting 
to see stabilized and/or improved performance in a number of areas, to 
include improved program manager assessments, technical oversight, 
cost, workforce capabilities, contracting and funding execution.

                           asia-pacific shift
    19. Senator Lee. Mr. Fanning, please explain how the Air Force is 
planning for the military's shift towards the Asia-Pacific region. 
Include in your answer what this shift will mean for existing domestic 
Air Force bases and what these bases and their communities can be doing 
to prepare for the shift.
    Mr. Fanning. The Air Force is taking a broad approach to 
rebalancing to the Asia-Pacific, seeking wider distribution of forces, 
expanded agreements with partners, and increased partner 
interoperability.
    Implementation of OSD's Asia-Pacific rebalance will not result in a 
substantial increase of U.S. Air Force permanent presence in the 
Pacific Command Area of Responsibility. However, in an era of overall 
force posture reductions, the rebalance protects forces in the Asia-
Pacific, resulting in a small percentage increase of our total overseas 
presence.
    Domestic Air Force bases and their communities will not experience 
a significant change in personnel or force structure as a result of the 
shift to the Asia-Pacific. However, rotational capabilities will 
continue to support the Secretary of Defense's strategy to rebalance 
its resources toward the Asia-Pacific region.

                           finance experience
    20. Senator Lee. Mr. Fanning, part of your job as Under Secretary 
of the Air Force would be serving as Chief Management Officer of the 
Air Force. This is an important position, as it will handle much of the 
day-to-day business of the Air Force, including managing finances. What 
experience do you have that qualifies you to handle this portion of the 
job? Please include specific examples of increasing efficiency and 
cutting costs from your time as Deputy Under Secretary of the Navy.
    Mr. Fanning. I do feel I am strongly qualified to fill the role as 
Chief Management Officer (CMO) in the USAF. I entered my current 
position as the Deputy Under Secretary and Deputy Chief Management 
Officer of the Navy (DUSN/DCMO) shortly after the Department of the 
Navy's first confirmed dual-roll Under Secretary of the Navy (USN)/
Chief Management Officer (CMO). This provided me the opportunity, 
working with him, congressional staff, OSD, and the other Services, to 
best understand the intent of CMO legislation and implement it in the 
most effective manner.
    One of the first things I noticed was that the Department of the 
Navy's strategy was heavily influenced by a technology-centric 
philosophy--essentially implementing large business systems to drive 
transformation in the Department. Since transformation is best 
accomplished by improving the business and then laying in the 
appropriate technology--not the other way around, we changed the 
strategy. Moreover, I demand that before any dollar was spent there 
must be a compelling business case for that expenditure. In the 
simplest terms I always ask two questions: why and so what? Why are you 
doing this; what are you hoping to achieve, and so what? Why does that 
matter? Will you save money; will you increase performance in some 
critical area that someone cares about; or some other goal?
    This is the leadership strategy I would employ in the Department of 
the Air Force if confirmed by the Senate. I bring to this position a 
facts-based, cost-conscious, and business-centric transformation 
philosophy. I also believe that in order to successfully transform at 
the highest level, you have to build relationships and trust. I have 
always found the best way to achieve outcomes is to give clear guidance 
and direction but allow individuals to come up with new and innovative 
ideas by empowering them. I also believe credibility is vital at this 
level and the success we have achieved in the Navy will serve me well. 
For example, in 2009 the Navy was handed the remnants of the Defense 
Integrated Military Human Resources System and told to implement it in 
the Navy. I immediately requested an independent assessment, and 
quickly concluded that we should stop inserting technology until we had 
first clearly defined the business problems. We then spent a year 
deconstructing our business processes, baselining our cost of doing 
business and prioritizing the highest impact business problems. Because 
of this approach, today the DoN is able to target specific problems 
holistic to the personnel and pay business--taking into account policy, 
processes and execution--before throwing technology into the equation. 
This approach resulted in the DoN reprograming roughly $300 million to 
the Navy while modernizing its personnel and pay systems in the right 
way.
    In terms of efficiencies, I spearheaded the Navy portion of the 
Secretary Gates efficiency effort. Two of my staff members served as 
part of Secretary Gates' core efficiency team. My office orchestrated 
the Navy's response by identifying and executing $35 billion in 
efficiencies. The Navy DCMO efforts were recently highlighted in the 
GAO report `Opportunities Exist to Improve Information Used in 
Monitoring Status of Efficiency Initiatives', GAO-13-105R, December 4, 
2012, which praised the progress of Navy efficiency initiatives using 
our newly emplaced internal governance structure. It further 
highlighted that for all of the initiatives selected, the ``Office of 
the Navy Deputy Chief Management Officer (DCMO) coordinated with the 
appropriate Navy offices ensuring implementation of efficiency 
initiatives went as planned'' and at the right level.
    As DCMO, I frequently met with my Air Force, Army, and OSD 
counterparts on the broad issues facing the DOD. I have played a key 
role in the full spectrum of management of department from streamlining 
business processes and certifying business IT systems to helping lead 
our Department on its path to audit readiness.

                           f-35 cost overruns
    21. Senator Lee. Mr. Fanning, delays and cost overruns with the F-
35 have caused some of our partner nations, most recently Canada and 
Australia, to reassess their acquisition of the jets. What effects will 
a reduction of purchases outside of the United States have on the 
program and the cost of the jet?
    Mr. Fanning. The F-35 delivers joint and partner nation air power 
essential to our mutual security strategy, and is a capability needed 
to defeat 21st century threats. The F-35 program was established on the 
concept of economies of scale for purchases. If an International 
Partner or U.S. Service reduces the number of F-35 aircraft they plan 
to purchase, the unit cost of each F-35 will increase. The amount of 
the cost increase depends on how many jets are reduced and in which 
years.

    22. Senator Lee. Mr. Fanning, how are DOD and the Air Force working 
with our partner nations to address their concerns and maintain their 
participation in the program?
    Mr. Fanning. DOD and Air Force are in close coordination with all 
eight of the System Development and Demonstration (SDD) Partner nations 
in the F-35 program. In addition to the daily interaction between 
liaison officers and DOD staffs working at the JSF Program Office in 
Crystal City, there is regular interaction between Lt. Gen. Christopher 
Bogdan, the JSF Program Executive Officer and senior leaders from each 
of the eight nations. The JSF governance structure addresses 
requirements and sustainment issues at different levels of leadership 
and allows partner concerns to be addressed in an open forum. The most 
recent engagement with senior leaders of F-35 program participants was 
the 20 March 2013 Joint Executive Steering Board, where Lieutenant 
General Christopher Bogdan briefed our partners that ``affordability is 
the #1 concern'' in the F-35 program and provided a status of 
development, production, and sustainment issues. There is a high level 
of transparency in communicating F-35 program status information to the 
partners.
                                 ______
                                 
    [The nomination reference of Mr. Eric K. Fanning follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 4, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Eric K. Fanning, of the District of Columbia, to be Under Secretary 
of the Air Force, vice Erin C. Conaton, resigned.
                                 ______
                                 
    [The biographical sketch of Mr. Eric K. Fanning, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Eric K. Fanning
Education:
    Dartmouth College
        <bullet> 1986-1990
        <bullet> Bachelor of Arts in History awarded June 1990
Employment record:
    Department of the Navy

        <bullet> Deputy Under Secretary/Deputy Chief Management Officer
        <bullet> July 2009-present

    Department of Defense

        <bullet> Special Assistant to the Secretary of Defense for 
        White House Liaison
        <bullet> April 2009-July 2009

    Commission on the Prevention of WMD Proliferation and Terrorism

        <bullet> Deputy Director
        <bullet> May 2008-January 2009

    Communication Management Group (CMG)

        <bullet> Managing Director
        <bullet> May 2007-May 2008

    Business Executives for National Security (BENS)

        <bullet> Senior Vice President for Strategic Development
        <bullet> December 2001-May 2007
        <bullet> Washington Regional Director
        <bullet> March 2001-December 2001

    1800HomeCare.com

        <bullet> Senior Vice President, Operations and Strategy
        <bullet> 1999-2000

    Robinson Lerer and Montgomery Communication (RLM)

        <bullet> Senior Associate
        <bullet> 1998-1999

    CBS National News

        <bullet> Associate Producer, Foreign and National Desks New 
        York City
        <bullet> 1997-1998

    The White House

        <bullet> Associate Director of Political Affairs
        <bullet> 1996

    Department of Defense

        <bullet> Special Assistant, Immediate Office of the Secretary 
        of Defense
        <bullet> 1993-1996

    U.S. House of Representatives

        <bullet> Research Assistant, House Armed Services Committee
        <bullet> 1991-1993
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Mr. Eric K. 
Fanning in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Eric Kenneth Fanning.

    2. Position to which nominated:
    Under Secretary of the Air Force.

    3. Date of nomination:
    February 4, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 2, 1968; Kalamazoo, MI.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    N/A.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
Secondary:
    Cranbook, Bloomfield Hills, MI, 1982-1984.
    Centerville High School, Centerville, OH, 1984-1986 (high school 
diploma)
Higher Education:
    Dartmouth College, B.A., 1986-1990.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Bio attached (attachment 1).
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    The nominee responded and the information is contained in the 
committee's executive files.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    None since college.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``The Infusion of Efficiencies into DON Culture and Processes''--
article published in Armed Forces Comptroller Journal, Summer 2011.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Multiple speeches in current position, all relating to defense 
management and small business. None have transcripts. None were 
formally written.

    17.Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Eric K. Fanning.
    This 25th day of February, 2013.

    [The nomination of Mr. Eric K. Fanning was reported to the 
Senate by Chairman Levin on March 20, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 18, 2013.]


NOMINATION OF GEN. PHILIP M. BREEDLOVE, USAF, FOR REAPPOINTMENT TO THE 
GRADE OF GENERAL AND TO BE COMMANDER, U.S. EUROPEAN COMMAND AND SUPREME 
                        ALLIED COMMANDER, EUROPE

                              ----------                              


                        THURSDAY, APRIL 11, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Donnelly, Kaine, 
King, Inhofe, McCain, and Ayotte.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Michael J. Kuiken, professional staff member; 
Gerald J. Leeling, general counsel; and William G.P. Monahan, 
counsel.
    Minority staff members present: John A. Bonsell, minority 
staff director; Steven M. Barney, minority counsel; and Thomas 
W. Goffus, professional staff member.
    Staff assistants present: Jennifer R. Knowles, John L. 
Principato, and Lauren M. Gillis.
    Committee members' assistants present: Jeff Fatora, 
assistant to Senator Nelson; Marta McLellan Ross, assistant to 
Senator Donnelly; Karen Courington, assistant to Senator Kaine; 
Jim Catella, assistant to Senator King; Paul C. Hutton IV, 
assistant to Senator McCain; Lenwood Landrum, assistant to 
Senator Sessions; Todd Harmer, assistant to Senator Chambliss; 
Brad Bowman, assistant to Senator Ayotte; and Craig Abele, 
assistant to Senator Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to consider the nomination of General Philip 
Breedlove, U.S. Air Force, to be Commander of U.S. European 
Command (EUCOM) and Supreme Allied Commander, Europe (SACEUR). 
General Breedlove is familiar with the European area of 
responsibility as he currently serves as Commander, U.S. Air 
Forces in Europe (USAFE). He is also familiar with the 
challenges of wearing more than one hat, as he currently is 
also Commander, U.S. Air Forces, Africa.
    General, we thank you for your 3\1/2\ decades of military 
service and for your willingness to answer the call to serve 
once again. We thank your wife Cindy, who is also here with you 
this morning. Your family, as you know better than anybody, 
their support and their sacrifices make it possible for you to 
succeed. Please feel free when we call on you for your opening 
statement to introduce your wife and any of your family or 
friends that are with you here today.
    The next EUCOM Commander and SACEUR, will face significant 
challenges within a constrained budget environment. We received 
the President's budget yesterday and, like the budgets passed 
by the Senate and the House, it does not address the 
possibility of a $52 billion sequester next year. If we don't 
take action to avoid this second sequester, cuts to defense 
spending will have a real impact on our strategy and programs 
in the coming years. Despite these cuts, the United States 
remains committed to our longstanding trans-Atlantic 
relationship with our European allies and to our mutual defense 
obligations under Article 5 of the North Atlantic Treaty.
    General, we'd be interested in your thoughts on the impact 
of the current sequester and the possibility of a second 
sequester in fiscal year 2014 on EUCOM's ability to carry out 
its mission.
    Last year the Defense Department announced reductions in 
the U.S. force posture in Europe, including the removal over 
the next couple years of two of the four Army brigade combat 
teams deployed in Europe. In addition, two U.S. Air Force 
squadrons under General Breedlove's command in Europe were 
designated for deactivation.
    As the United States continues to rebalance its military 
posture globally, I hope you'd share your thoughts on the 
ongoing rebalance and what additional revisions, if any, to the 
U.S. footprint in Europe you would recommend if confirmed.
    Nearly all of our North Atlantic Treaty Organization (NATO) 
allies have undergone budget cuts of their own in recent years, 
raising concerns about what the capabilities of the alliance 
will be when the next crisis arises. Yet, after 10 years of 
fighting together in Afghanistan, the level of NATO cohesion is 
high and is unprecedented. One of the major challenges in the 
coming years will be capturing the lessons learned from these 
coalition operations and maintaining current levels of 
interoperability within the alliance.
    The NATO mission in Afghanistan is entering a critical 
phase in the coming months, with the transition to Afghan 
security forces taking the lead on security throughout the 
country later this spring and coalition forces shifting to an 
advisory mission between now and the end of the International 
Security Assistance Force mission by the end of 2014.
    The next NATO SACEUR will play a critical role in ensuring 
the smooth implementation of NATO's ``in together, out 
together'' policy for the Afghanistan mission and in shaping 
the post-2014 mission in Afghanistan which was discussed at the 
NATO defense ministers meeting in February.
    While Syria is not in EUCOM's area, its impact is felt by 
key allies in the EUCOM region, including Turkey and Israel. As 
the civil war in Syria rages on, President Assad and his 
increasingly small inner circle are resorting to the use of 
Scud missiles, air strikes, and other indiscriminate 
capabilities that terrorize innocent Syrians and increase 
further the flow of refugees out of Syria.
    Last year the alliance agreed to deploy Patriot missile 
batteries to defend Turkey against potential action by Assad. 
This action by NATO is commendable, but it's not enough. The 
United States needs to build a coalition to ramp up the 
military pressure on the Assad regime, and I hope our allies in 
NATO will join this effort. The Arab League has already 
stripped the Assad regime of its seat at the Arab League and 
invited the Syrian opposition as the legitimate representative 
of the Syrian people.
    General, if confirmed as Supreme Allied Commander for all 
NATO military operations, you will be confronted with these 
issues and we look forward to hearing from you on this matter 
today as well.
    At the Lisbon summit in 2010, NATO agreed to develop 
missile defense capability to defend NATO European territory, 
population, and military forces. This is essential to protect 
our forward-deployed forces, allies, and partners against the 
existing and emerging regional missile threat from Iran. To 
achieve that commitment, NATO agreed to develop and finance a 
command and control system and the United States is 
contributing Phases 1 through 3 of the European Phased Adaptive 
Approach (EPAA) to missile defense, which remain on track to 
protect NATO Europe by 2018, with its defense sites in Romania 
and Poland.
    Secretary Hagel recently stated that our commitment to NATO 
missile defense, ``remains ironclad''. He also announced that 
the United States no longer plans to deploy Phase 4 of the 
EPAA, because Phase 4 was designed to protect the United 
States, not Europe, and we can achieve enhanced protection of 
the United States from a potential Iranian long-range missile 
sooner by deploying 14 additional ground-based interceptors in 
Alaska. General Breedlove, we're interested to know your views 
on that issue.
    As part of its 2010 Lisbon agreement, NATO also invited 
Russia to cooperate on missile defense. Although NATO and 
Russia have had different views on missile defense, there are 
numerous successful areas of U.S.-Russian and NATO-Russian 
military cooperation and the NATO-Russia Council continues to 
have active discussions on missile defense cooperation, 
including a joint theater missile defense exercise program.
    The United States and NATO believe that cooperation on 
missile defense can enhance the security of both NATO and 
Russia and such cooperation could also send a vitally important 
signal to Iran that we are united in opposition to any Iranian 
efforts to acquire nuclear weapons and long-range missiles.
    Other challenges facing the next EUCOM Commander and SACEUR 
include continuing and strengthening bilateral and NATO 
efforts: to counter transnational threats from terrorism; to 
prevent illicit trafficking, including the flow of narcotics 
from South Asia and elsewhere through Southeastern Europe; to 
counter cyber threats, including to the NATO Cooperative Cyber 
Defense Center of Excellence in Estonia; to counter piracy; and 
to maintain strategic assets, the key transit facilities for 
global operations, particularly in support of U.S. Central 
Command (CENTCOM) and U.S. Africa Command (AFRICOM).
    We all look forward to your testimony today, General, on 
these and other issues, and again we thank you for your 
continuing willingness to serve our Nation.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    We are faced with a little bit of a problem this morning in 
that at 10:30 we have a Committee on Environment and Public 
Works meeting and there are five members on the Republican side 
alone that will be going back and forth, as I've already 
explained to General Breedlove. So we'll be moving around a 
little bit.
    I enjoyed very much meeting your beautiful wife and two 
daughters. I guess Dave is there somewhere; is that right? Yes. 
I didn't mean to sell you short. I just kind of walked by you 
to the beauty. [Laughter.] Anyway, it's nice to have your 
family here with you.
    As I look at Iran, North Korea, and al Qaeda, as you and I 
talked in my office, and Mali and the conflict in the Central 
African Republic, and 70,000 dead in Syria, I can't understand 
how the President thinks that, ``The tide of war is receding.'' 
On my recent trip to Korea we visited the demilitarized zone, 
which as you know from your time in Korea is anything but 
demilitarized. On my visit to North Africa we discussed the 
problems there, and none would indicate that the tide of war is 
receding. If this is what receding looks like, I'd hate to see 
what a threat looks like.
    Through my extensive travel in Europe, Africa, and the 
Middle East and Asia, the critical importance of U.S. 
engagement and leadership abroad is readily apparent and the 
security dividends of our investment in NATO include the 
multinational operations in Afghanistan and Libya and counter-
piracy missions in the Horn of Africa. I do want to cover that 
in my questions to you because it's probably even more 
extensive than people realize. It's clear that the future 
operations we conduct in Africa and the Middle East will be 
from Europe and with Europe.
    I don't remember a time when the world was more dangerous 
than it is now. I can remember people saying that in the past, 
but it's for real now. Yet due in part to the wrong perception 
that the tide of the war is receding, we are poised to cut our 
defense budget by, if you take what has already been done and 
what we're looking at in sequestration, about a trillion 
dollars. I agree with our former Secretary of Defense it's 
devastating to our defense. While our military commanders have 
done a phenomenal job with the hand that they are dealt, we owe 
them a better hand.
    Unfortunately, the President released a budget yesterday 
that's symbolic of his last 4 years in office. It highlights 
his failure to address the unprecedented resource challenges 
facing our military. His proposal continues his unfortunate 
history of saddling the men and women of our military with 
disproportionate and illogical budget cuts that would undermine 
their readiness and their capabilities.
    As you and I talked about in my office, four of the six 
U.S. fighter squadrons stationed in Europe have been grounded, 
and our tanker and airlift squadrons will revert from full 
mission capable to a greatly reduced status of basic mission 
capable. The lack of resources will make EUCOM's support of 
AFRICOM even more difficult. We'll have a chance to talk about 
that and I've expressed to you my concern there.
    Over the long term, I'm greatly concerned that we'll 
squander our investment of our national blood and treasure in 
Afghanistan by precipitously drawing down the troops' 
capability similar to what we saw in Africa.
    Now, when you're confirmed, General Breedlove, you'll be 
charged with guiding the most successful alliance in history 
through a difficult fiscal environment and be responsible for 
ensuring that our efforts in Afghanistan over the last decade 
will not have been in vain. I can't think of anyone who is more 
up to this very difficult task than you are, and so I'm looking 
forward to the successes that we'll see through your leadership 
in this new position.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]
             Prepared Statement by Senator James M. Inhofe
    Thank you, Mr. Chairman. I join you in welcoming General Breedlove, 
who has amassed an impressive record of service. General, I thank you 
for your continued willingness to serve the country. Please ensure the 
brave men and women you lead know how grateful we are for their 
sacrifice, and that of their families, on behalf of our national 
security.
    General Breedlove, we no longer have the luxury of operating in a 
bipolar world as we did during the Cold War--when you were cutting your 
teeth as a second lieutenant and when the threats to the Homeland were 
clear. Now, more than ever, the threats in the areas of responsibility 
around the globe are interconnected. What happens in Europe, the Middle 
East, the Asia-Pacific and Africa has the potential to directly impact 
the security of the U.S. Homeland.
    I have a hard time squaring the reality of an aggressive Iran, a 
bellicose Kim Jong Un, a war against al Qaeda in Mali (AQIM), armed 
conflict in the Central African Republic, continuing frozen conflicts 
in Azerbaijan, and 70,000 dead in Syria, with the President's statement 
that ``the tide of war is receding.'' On my trip to Korea in January, 
we visited the DMZ, which as you know from your extensive time in 
Korea, is anything but demilitarized. It was obvious when we visited 
Taiwan that based on the number of missiles pointing at us from China, 
the Chinese don't think that the ``tide of war is receding.'' On our 
visit to Northern Africa, we discussed AQIM, Boco Haram, and al 
Shabaab--none of which would tell you that the ``tide of war is 
receding.'' If the ``tide of war is receding,'' I'd hate to see what it 
looks like when the President decides it is coming in.
    Iran is determined to develop a nuclear weapon, despite growing 
international pressure and the damage sanctions are doing to its 
economy. Public intelligence reports tell us that they could have a 
ballistic missile capable of reaching the east coast of the United 
States by 2015. Although I'm encouraged that the President reversed his 
earlier misguided decision and is now seeking to bolster our homeland 
missile defense system through fourteen additional ground-based-
interceptors on the west coast, I remain deeply concerned about our 
ability to defend against the growing threat from Iran. Restoration of 
the original planned number of missiles on the west coast helps but is 
late to need and does not go far enough. We need the additional 
protection that an east coast site would provide.
    Throughout my extensive travels to Africa, the Middle East, and 
Asia, it has been readily apparent how critically important it is for 
the United States to remain engaged and a leader abroad. The return on 
that investment abroad is exemplified by the troop contributions of 
over 50 nations from around the globe to the International Security 
Assistance Force in Afghanistan. The North Atlantic Treaty Organization 
(NATO) has served as an invaluable partner and critical platform to 
integrate the contributions of troops and military capabilities to 
bolster operations in Afghanistan, while at the same time operations in 
Afghanistan have transformed the expeditionary capabilities of NATO. 
The security dividends of our investment in NATO include combined 
operations in Afghanistan, Libya, and counter piracy missions off the 
Horn of Africa. It is clear that whatever future operations we conduct 
in North Africa and the Middle East will be from Europe, and with 
Europe.
    While the threats that our witness is tasked with confronting are 
growing in scope and complexity, the resources available to deal with 
them are decreasing. I don't remember a time when the world has been 
more dangerous and the threats more complex. Yet, due in part to the 
misperception that the tide of war is receding, we are poised to cut 
our defense budget by a trillion dollars over the next 10 years. The 
misguided policy of the President is the relentless pursuit of 
disarmament. As we diminish our defense industrial base, China and 
Russia increase theirs; nurturing militant adventurism that ultimately 
our military commanders must address. While our military commanders on 
the ground have done a phenomenal job with the hand that they were 
dealt; we owe them a better hand.
    I remain concerned that we have a strategy-resource disconnect that 
puts military lives and our national interests at risk. As we speak, 
four of six U.S. fighter squadrons stationed in Europe have been 
grounded and our tanker and airlift squadrons will revert from full 
mission capable to a greatly reduced status of basic mission capable. 
This lack of resources will make U.S. European Command support to U.S. 
Africa Command even more difficult and further reduce our ability to 
react to contingencies similar to Benghazi. Over the longer term, I am 
also greatly concerned that we'll squander our investment of national 
blood and treasure in Afghanistan by a precipitous draw down of troops 
and capabilities similar to what we saw in Iraq.
    If confirmed, General Breedlove, you will be charged with 
stewardship of the most successful alliance in history and be 
responsible for ensuring that our efforts in Afghanistan have not been 
in vain. As we saw very clearly in Libya last year, our strategic 
partnership and strategic access in Europe is the linchpin for our 
engagement in some of the most volatile regions in the world today. 
What I'm getting at here General is that there will be no shortage of 
challenges facing you and the men and women you will lead. The threats 
are growing, and the tools available to address them are declining.
    I look to you to provide the committee with your assessment of how 
the ongoing budget crisis will impact your ability to effectively 
address national security challenges and whether the current strategies 
that you are operating under are still executable given the budget 
realities.
    Thank you again for appearing before us today and I look forward to 
your testimony.

    Chairman Levin. Thank you very much, Senator Inhofe.
    General.

STATEMENT OF GEN. PHILIP M. BREEDLOVE, USAF, FOR REAPPOINTMENT 
  TO THE GRADE OF GENERAL AND TO BE COMMANDER, U.S. EUROPEAN 
         COMMAND, AND SUPREME ALLIED COMMANDER, EUROPE

    General Breedlove. Thank you, Mr. Chairman, Ranking Member 
Inhofe, and distinguished members of the Senate Armed Services 
Committee.
    I would like to introduce my family, sir. I'd like to 
introduce first my wife, Cindy. She's been beside me for 34 
years. She's moved our household 21 times, 9 of those times 
across the oceans, and she completely raised the 3 wonderful 
children who have already been acknowledged, Samantha, Rebecca, 
and Daniel. I know that I would not be here today without her 
and my family.
    I'm honored to have my oldest daughter, Samantha, here. 
She's a world-class triathlete in my mind. Her husband Kevin 
serves in the Army National Guard and has accomplished two 1-
year tours in Iraq.
    I'm also honored to have with me my daughter, Rebecca, and 
my son-in-law, Clay, both of whom proudly serve their Nation as 
lieutenants in the U.S. Air Force. Clay is a third generation 
Air Force officer. His father, Master Sergeant Mike Hardy, is 
also here with him today.
    My son Daniel is here and is a freshman in college and he 
makes me proud every day with what he does.
    Chairman Levin. Is he going to the University of Michigan, 
I hope?
    General Breedlove. Sir, no, sir. I'm off to a bad start. 
[Laughter.]
    Senator Donnelly. We have some other suggestions for that 
as well.
    General Breedlove. My mother-in-law, Ms. Lib Thompson, is 
here today with us as well. Her husband, Don Thompson, now 
deceased, served in the Marine Corps and they have both 
supported Cindy and I throughout our Air Force career.
    Ms. Regina Hagerty is also here in support. She has been a 
part of our family for over 28 years, since her husband was my 
most influential commander in my early years.
    Finally, I'm proud to have Chief Master Sergeant Craig 
Adams here. He is the most important half of my command team at 
USAFE.
    It's a tremendous honor for me to be here today and I'm 
humbled to have been nominated by our Commander in Chief for 
the position of Commander of U.S. European Command and Supreme 
Allied Commander, Europe. Allow me to publicly thank Secretary 
Hagel and General Dempsey for their recommendation and for 
their trust and confidence. I'd also like to say thank you to 
Admiral Jim Stavridis for his 36 years of service to our 
country. His leadership of our joint and coalition forces as 
our longest serving combatant commander has truly been 
inspiring.
    The nations of Europe make up the majority of an alliance 
key to our collective defense strategy. They have been our most 
reliable allies for over 70 years. These partnerships are 
irreplaceable. We cannot rebalance or pivot towards Asia 
without Europe.
    I have served in Europe for a third of my career and if 
confirmed this will be my eighth assignment. I have worked hand 
in hand with our partner nations to advance U.S. and alliance 
objectives. While it's a tremendous honor to be nominated to 
this position, I believe leadership is a responsibility that 
must be earned through action, a daunting task for anyone 
selected to lead the great men and women responsible for a 
coalition that has ensured the trans-Atlantic security of our 
Nation and its allies.
    If confirmed, I fully acknowledge the significance of our 
mission in Europe and your expectations of me as a commanding 
general. Cindy and I pledge to give nothing less than our all 
to live up to decades-long standards of excellence. Our 
soldiers, sailors, airmen, marines, and coastguardsmen who 
selflessly serve deserve nothing less than everything I have to 
offer.
    Thank you, Mr. Chairman and the committee, for allowing me 
to appear before you today and I look forward to your 
questions.
    Chairman Levin. Thank you very much, General.
    Our timing system worked very well yesterday, so we'll 
continue. We thank Senator Inhofe for that suggestion to use 
this highly advanced technology, which has been here for 
probably 20 years without use by this committee. [Laughter.]
    General, last month Senator McCain and I sent a letter to 
the President urging him to work with NATO and our regional 
partners to pursue additional options in Syria, including the 
following options: to degrade the Assad regime's air power with 
precision air strikes or the possible use of Patriot missile 
batteries; to target Syrian aircraft and missiles; to create 
with Turkey's initiative, a safe zone within Syria, with a 
limited no-fly zone; to provide additional assistance to vetted 
opposition groups.
    Can you give us your personal assessment of these options? 
Are they viable and are they desirable in your professional 
military opinion?
    General Breedlove. Thank you, Mr. Chairman, for the 
question. We have six batteries of Patriots in Turkey at this 
time and they are reacting to and under the command of my NATO 
element, Headquarters Allied Air Command (AIRCOM) NATO. They 
are voluntary national contributions to an Article 4 request by 
Turkey to participate in the defense of a stalwart ally.
    Two of those batteries are U.S. batteries and four are 
NATO. In order to be able to use any of those batteries in a 
safe zone protection of Syria, of course, we would have to 
engage Turkey and NATO about the four additional batteries. As 
you and I have discussed, sir, clearly the U.S. batteries could 
be used in a role to project into Syria. They have the 
capability to do it. Their range is somewhat limited, as we 
have discussed, at doing that, but they have full capability to 
do that. If Turkey and the United States were to look at doing 
this in a bilateral fashion or if we could convince our NATO 
partners to come alongside of us to also be a part of that, 
then we could do that.
    The fact of the matter of being able to project power into 
Syria is physically possible. There is both good and bad at 
creating this impression into Syria. I think that it enables 
some of the things that we discussed that you are concerned 
about as far as a safe zone in northern Syria. What it would do 
is ask us then to reorient the defense away from what they are 
defending now, and I guess that's the down side of reorienting 
where those Patriots are.
    Creating a no-fly zone. I think General Mattis in his last 
testimony to this committee put it pretty much the way I see 
it: A safe zone could create opportunity to engage with the 
opposition, but creating a safe zone in northern Syria would 
have to be much more than Patriots. It would probably require 
fixed wing air and other capabilities that we would have to 
bring to the problem.
    As I know you and I have talked and your staff have talked, 
creating a no-fly zone first starts with having to take down 
the integrated air defense system of the enemy, which would be 
something that would have to be done kinetically. I know that 
CENTCOM has thought through those issues and their 
recommendation at this point is they don't see a military value 
in that.
    Chairman Levin. Excuse me. CENTCOM has said they don't see 
a military value in taking down air defenses of Syria--I'm 
sorry.
    General Breedlove. I'm sorry, Senator. Let me say that a 
different way. What they have said is they don't believe that 
there are good military options or outcomes by creating a no-
fly zone.
    Chairman Levin. Over a safe zone?
    General Breedlove. Yes, sir.
    Chairman Levin. Who have they said that to?
    General Breedlove. I think, Senator, that was General 
Mattis in this committee. Maybe I have that wrong.
    Chairman Levin. Yes, I don't think so. But we'll review 
that testimony. Senator McCain I know has been very actively 
involved in this issue.
    Senator McCain. Let me. Could I?
    Chairman Levin. Yes.
    Senator McCain. With your indulgence, sir, General Mattis 
said, ``The United States and our allies could identify and 
destroy quite a fair amount of Assad's operational aircraft on 
the ground using precision strike and standoff weaponry,'' 
General. So your statement is in direct contradiction to what 
General Mattis said in testimony and has told me.
    General Breedlove. Senator, I sit corrected. You have it 
exactly right, what General Mattis said in your testimony.
    Chairman Levin. Okay, thank you for that important 
clarification. The stakes here are very significant.
    Yesterday an administration spokesman, senior 
administration official, said that, ``The President has 
directed his national security team to identify additional 
measures so that we can increase assistance.'' I would hope 
that would happen quickly, and I know Senator McCain and other 
members of this committee have spoken on this subject as well.
    I'll leave the subject of Syria, I'll leave it at this 
point, in order to be able to ask some additional questions. 
But we do hope, General, that when you're confirmed that you 
will take back to our NATO allies the feeling of many members 
of this committee, who will all speak for themselves, and 
hopefully by then an administration position that we be much 
more forward-leaning in terms of putting additional military 
pressure on Assad, which would really require NATO support, and 
it obviously would require Turkey to decide that it is willing 
to create a safe zone in northern Syria, providing it has NATO 
support. We would hope that you would be able and ought to make 
this case to NATO as we've just outlined.
    On the missile defense issue, on European missile defense, 
is it your assessment that our European allies are supportive 
of our new missile defense policy in Europe?
    General Breedlove. Mr. Chairman, thank you again for that 
question. I have talked to numerous of the major allies that 
are a part of AIRCOM since AIRCOM, which is my NATO current 
hat, is in charge of the missile defense, which is in its 
nascent form now, our initial capability. As I understand the 
feedback from all of my NATO counterparts at this point, as 
long as we remain steadfast in our support to Phases 1 through 
3, which was the portion of the missile defense that was about 
Europe, as long as we are unfaltering in our support to proceed 
apace with those first three phases, our NATO partners are 
comfortable with the announcement.
    Chairman Levin. That is our new policy, is that correct?
    General Breedlove. Yes, sir.
    Chairman Levin. In your response to prehearing questions 
you said that we should continue to seek zones of cooperation 
with Russia and that we should continue to believe that 
cooperation with Russia on missile defense could enhance the 
security of both NATO and Russia. Can you describe ways in 
which you believe that missile defense cooperation and 
transparency with Russia could enhance our security, including 
whether such cooperation could send a powerful signal to Iran 
that we oppose jointly, NATO and Russia oppose Iran acquiring 
nuclear weapons and long-range missiles?
    General Breedlove. Sir, I agree with the opening statement 
that was made, and that is that we have to find ways to 
cooperate with Russia. I think in the opening statement it made 
reference to the signal to Iran. What a powerful signal to Iran 
if the U.S. and Russia were cooperating on missile technology 
and missile defense.
    I think we do need to press hard to move forward with that. 
I've started in my current job connecting to senior Russian 
leaders and actually have hosted at my headquarters there their 
commander of long-range aviation as a first step to get to the 
senior leadership. I'm committed, if confirmed, to continue 
that pursuit to bring Russia alongside of us in these important 
endeavors.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Chairman, I appreciate your drawing attention to the 
family. I think a lot of people don't understand the sacrifices 
that are made. To me, Cindy, when I hear something like you've 
been married for 34 years and moved 25 times or whatever it 
was, it's inconceivable to me. My wife and I have been married 
54 years and we've never moved. Same house that we were 
originally in. It's hard to see that. But that's a lifestyle 
that you've become accustomed to and you've made great 
sacrifices.
    I'm not going to do it, but for the record, because of your 
current position, not the position for which you will be 
confirmed, I hope, I am concerned about where we are in our 
Phase 1, 2, 3, and 4, and the fact that cancellation of the 
fourth phase in terms of the capability of our SM-3s, the 1A, 
the 2B, 2As, and what we don't have. I'd like to get, for the 
record, from your past experience where you really think that 
puts us today. You and I talked about this in the office, but 
I'd like to have it down so that we can have that in writing.
    General Breedlove. Sir, I have that for the record.
    Senator Inhofe. All right, sir. That's good.
    [The information referred to follows:]

    After announcement of the change to European Phased Adaptive 
Approach (EPAA) by Secretary Hagel, it is clear that the U.S. 
contribution to defense of NATO Europe will be unaffected. Phases 1-3 
of the EPAA will still provide defense of Europe, and Phase 3 in 
particular will allow coverage of all European NATO populations and 
territory to the extent technically feasible. The indefinite hold on 
Phase IV does not affect deployment of Phases 1-3.
    The goal of EPAA Phase 4 was defense of the United States against 
an intercontinental ballistic missile attack from the Middle East. We 
will now meet that goal sooner by additional ground-based interceptors 
deployed in the United States, which will also enhance protection of 
the United States against the growing threat from North Korea.

        <bullet> The U.S. European Command has already deployed a radar 
        to Turkey and Aegis Ballistic Missile Defense ships to the 
        Mediterranean Sea as part of Phase 1.
        <bullet> The United States stated commitment to Phases 1-3 
        includes the development of Aegis Ashore sites in Romania (2015 
        timeframe) for Phase 2 and in Poland (2018 timeframe) for Phase 
        3.
        <bullet> As Under Secretary of Defense for Policy (Dr.) Miller 
        stated at a press conference, ``We will still go forward, as 
        planned, with Phases 1-3. Phase 3 for the European Phase-
        Adaptive Approach will involve deploying about 24 SM-3 IIA 
        interceptors, SM-3 interceptors including the IIA in Poland. 
        Same timeline, same footprint of U.S. forces to support that.''

    Senator Inhofe. Now, you mentioned in my office and I 
mentioned in my opening statement that four of the six U.S. 
fighter squadrons stationed in Europe have been grounded--and 
our tanker and airlift squadrons will revert from full missile 
capability to a greatly reduced status for basic mission 
capability--how long does it take to make that up?
    I'm thinking more because of my personal background in 
what's happening to our fighter squadrons stationed in Europe, 
because you have a problem. You're going to have to get them 
back up ready. What do you do with them during this period of 
time? You have four of them that are down there and you also 
have the pilots. There's only so much you can do on simulation. 
What do you do with them and how long will it take you to get 
back and the kind of comparable cost should we see fit to 
address this in our National Defense Authorization Act (NDAA) 
for Fiscal Year 2014?
    General Breedlove. Sir, it is a great question and we have 
been thinking about this ever since we have begun to 
contemplate that we would have ground forces. As I have 
explained to some, the forces actually degrade over time. Our 
youngest pilots after about 30 days lose their qualifications. 
Our older pilots after about 45 days, they lose their 
qualifications.
    Once they lose their landing qualifications and other 
combat skill qualifications, then we essentially have to put 
them through a requalification process. If we were to receive 
funding to be able to start flying them very shortly after 
they're grounded, that would be a shorter process. If we had to 
wait all the way to the end of the fiscal year to get budget 
authority for flying hours in the next fiscal year and they are 
grounded for say 3\1/2\ months, then it would be much longer.
    We've looked at that, sir, and I think for the fighter 
aviation a rough number is 2 months, a little more than 2 
months to get the squadron back on track. For the lift 
squadron, when they lose some of their exquisite capabilities 
like paradrop, precision drop, supporting the Army in their 
parachute training, etcetera, those are harder to regain simply 
because we have to get the training opportunities to do it. 
It's not like you can just fly sorties the next day. We have to 
marry with the Army and other things. That could take 
significantly longer, and that concerns me, Senator.
    Senator Inhofe. I think that as we go into our development 
of our NDAA and we start our discussions, we want to get from 
you some more specifics, because should we do what I consider 
to be the responsible thing, we need to know the costs and what 
we have sacrificed in this interim period of time.
    Just one real question I normally do ask. It's becoming 
less relevant, but it still is relevant. That is on the 
sequestration. If we were, as I suggested some 7 weeks ago, 
able to take the same top line and give the commanders in the 
field more flexibility, would that--I have talked to all the 
Service Chiefs. I have them on record here. But would you agree 
with them that it would be far less devastating if we could 
have some flexibility at the discretion of the Service Chiefs?
    General Breedlove. I do, Senator.
    Senator Inhofe. One of the areas that I've been very much 
concerned with is, of course, in AFRICOM. You'll have that 
responsibility. It's an awesome responsibility because of your 
shrinked resources and the problems that are happening there. 
Now, we're used to problems in Africa. We've never, prior to 
September 11, really addressed them to any real degree.
    Everyone is aware of what happened in Somalia. They're 
aware of piracy on the east coast. But, as you and I talked, 
I'm reminded when I go over there that, with the new finds of 
the oil and the resources in West Africa, we have a new problem 
that's developing there and that's piracy in West Africa.
    Now, just when you look at the fact that you are up in 
Stuttgart and you have to get your resources down to that huge 
continent of Africa, how are you going to handle that? It's 
hard enough as it is today, but as this expands, and with the 
resources you have--and I'm talking about maybe lift resources. 
Maybe this is something we need to reevaluate.
    How can you handle that with these new problems coming in, 
that vast continent of Africa?
    General Breedlove. Yes, sir. I think that my last several 
assignments in USAFE where we supported Africa before AFRICOM 
and now as the Africa commander, I have learned the definition 
of geography and what geography means, time, distance, and 
heading. I often show a picture, a map of Africa, where you can 
literally put almost exactly four continental United States in 
the continent of Africa. I understand now as an operational 
commander just how hard access is to Africa even if it's 
unopposed. Time, distance, and heading becomes a real problem.
    Being able to have forces forward deployed in the southern 
tier of USAFE so that they can reach into Africa is incredibly 
important. Our basing in these southern states--Spain, Italy, 
and others--are critical to us. I believe that we are now in 
northern Africa looking to see where are there lily pads inside 
of Africa that we can establish relationships with nations 
whereby when we need to we can move forces forward, to cut that 
time, distance, and heading problem down.
    Senator Inhofe. I think that's important because that's a 
moving target. Not long ago no one was really concerned about 
Mali and Chad and some of that area in there. However, we are. 
When we look at the five African brigades that we originally 
talked about building, not that we're on schedule for doing it, 
which would be another question for the record, it concerns me 
that we are already to the point where you have to have these 
resources, you have to have them developed.
    Initially when we, as you well know and most of the people 
at this table know, when we established AFRICOM, it would have 
been better to have that headquarters down more centrally 
located, maybe even in Africa, maybe in Ethiopia. But we know 
the political problems down there that made that impossible.
    With the reduction in the resources that are already there 
and the escalating problems already in eastern Africa, but now 
in West Africa, that's going to be one that's going to be a 
huge problem for you. I'd like to have you be sure to let us 
know as we go into the development for 2014 just what those 
problems are so we can help you to address those problems when 
that time comes.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    For everyone's information, the vote is now scheduled at 
11:00 o'clock.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    General, thank you for your service, and to all of your 
family. I noted that you graduated from college the same year I 
did. I consider you as young as I am, and it's wonderful to see 
your family here with you today.
    You will help in your new position coordinating our 
reduction in forces from Afghanistan. As we look at that 
process moving forward, what do you consider as the most 
significant challenges for the Afghan army, for the police, for 
their government, as we move forward in this process?
    General Breedlove. Sir, it's a great question. As we look 
at what are the sizes that are being contemplated for the long-
term force structure and what are the capabilities that are 
being contemplated, it is center in our discussion. I think 
first and foremost we need to continue the pressure on making 
sure the professionalism of the military meets the requirements 
of the Nation. I think that, quite frankly, we are doing pretty 
good there in the armed forces piece and we have some work to 
do in the Afghan police piece.
    But we need to make the military creditable, capable, and 
responsive and appear creditable to the Nation of Afghanistan 
and the people that they would protect. I would offer that 
their recent performance in the military realm has been quite 
respectable. Almost 90 percent of the nation now is back to the 
Afghanis. They have led now some very large formation attacks 
and complex military maneuvers, which are fairly encouraging in 
this matter.
    Senator Donnelly. Do you have, as we move forward on this, 
almost a set of metrics as we head closer toward the end of 
2014, that at this point we hope to be here, at this point we 
hope to be here?
    General Breedlove. Sir, the short answer is no, I do not. 
But I know that Joe Dunford, who is a long-time friend, we have 
served together many times, I know that he is working on that. 
If confirmed, my pledge is to get there to talk to Joe and then 
go down and see Lloyd Austin immediately thereafter, to do just 
that: How can we develop metrics and thoughts that will inform 
this Congress and inform our leadership on the way to go ahead?
    Senator Donnelly. What do you see as the biggest challenge 
in this process of transition?
    General Breedlove. Sir, my initial response now, not having 
been there, will be colored by the color of my uniform. As I 
talk to the other NATO nations and as I have talked to the 
commanders there in my past trips as an Air Force officer, they 
are very concerned about enablers. They are very concerned 
about being able to do the intelligence, surveillance, and 
reconnaissance that we do, to be able to do the personnel 
recovery that we do, to do the medevac that we do, inter- and 
intra-theater airlift.
    These are all things that they are not capable of doing and 
that NATO has been providing by and large during the time, and 
I think those are things that we need to be concerned about.
    Senator Donnelly. Admiral Stavridis had told us a few weeks 
ago that the remaining bases in EUCOM were forward operating 
bases needed for access and that we could conceivably draw down 
further. I met with the Army this week and they briefed us on 
their plans. Their plans, they told me, were to reduce the 
infrastructure in the region by 51 percent between now and 
2016. How do we match those goals and the previous testimony 
that we heard?
    General Breedlove. Senator, let me just talk to what I've 
been doing as the air commander there and what I've watched my 
fellow commanders around do the same thing. When I took command 
about 9 months ago, I immediately started looking at what is 
the enduring mission of USAFE as it supports Africa and Europe 
and the Middle East, the Eastern Med, and Africa?
    I do believe that we have more infrastructure that we can 
draw down in the Air Force. I have heard my fellow component 
commanders speak to the same. I know very much less about what 
Bruce Clingan is looking at in the Navy, but I do know that the 
Army thinks that they can bring down further.
    I think it's in all of our best interests to do that, 
because these bases cost money and the infrastructure that we 
can draw down saves money for flying aircraft.
    Senator Donnelly. One of the things I just want to try to 
get your commitment for, the Indiana National Guard, we're 
extraordinarily proud of them. They have ongoing relationships 
with European state partners, and I just want to make sure that 
we can get your commitment that the longstanding relationships 
between National Guard units and the European state partnership 
countries will remain with the Guard as we move forward.
    General Breedlove. Senator, I can absolutely assure you in 
that respect. For EUCOM, 21 state partnership programs 
servicing 22 nations. As I talked to the staff in preparation 
for this hearing, they tell me that literally one-quarter of 
our interaction with our partners are done by the state 
partnership program.
    [The information referred to follows:]

    During the hearing, I referred to 21 state partnership programs 
servicing 22 nations in the U.S. European Command area of 
responsibility. I misspoke and should have said there are 23 state 
partnership programs.

    General Breedlove. Specifically in the Air Command, I could 
not run by air operations center either in peacetime or in 
conflict without the support of two Guard units that bring 
people and expertise to my area of command.
    Senator Donnelly. As we look at Syria, obviously we're 
concerned with all the border areas, but one of the border 
areas that we're concerned about conflict threatening to boil 
over is in Israel. We are wondering the coordination between 
EUCOM and the Israeli Defense Forces, as well as coordination 
with our other friends and allies in the area. What kind of 
coordination is occurring now and what do you plan moving 
forward in this extremely challenging situation?
    General Breedlove. The coordination level now is higher 
than I've ever seen it. I have been participating in working 
with Israel since I was a colonel in Europe. I have flown in 
Juniper Falcon from Nevatim Air Base twice in my life during 
large exercises with Israel.
    At the senior staff level, in preparation for last year's 
Austere Challenge 12, which you have heard billed as the 
largest missile defense exercise ever, we could not have been 
more tightly lashed to Israel in how we plan to do missile 
defense of that area should we need to.
    I think that it is very strong. It continues to grow 
stronger and it should as we bring ourselves closer and closer 
together, to dealing with a neighborhood that has been altered, 
I think, by the Arab Spring.
    Senator Donnelly. Right. That's with our other allies, too, 
I presume.
    I'm almost out of time, so I want to ask you one last 
question. As you look at this region, as you look at your new 
potential command, what is your greatest concern as you look, 
as you move ahead? What keeps you up at night, other than your 
children?
    General Breedlove. Sir, I think my first focus is going to 
be getting the transition in Afghanistan right. I need to get 
over there, engage with the commanders, come back and engage 
with the leadership here in Congress and our Nation, and make 
sure that we have force sizing, drawdown schedules, and what we 
leave behind in residual capability right. I have to focus on 
that.
    I'm running over a little bit, but, sir, I think it's 
really important that as we begin this drawdown in Afghanistan 
that we don't take a peace dividend and, as was mentioned in 
the opening comments, back way off of the gains that we have 
made with our European allies in interoperability and their 
investment in defense and in participating in Afghanistan.
    Senator Donnelly. General, thank you. To your family, thank 
you very much for all your service.
    Chairman Levin. Thank you very much, Senator Donnelly.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Thank you, General, for you and your family's service. You 
mentioned all the different duty stations and I'm sure that 
your time at Luke Air Force was by far the most enjoyable of 
all of those.
    General, I mentioned to you in my office both Admiral 
Stavridis and General Mattis have been very candid with this 
committee, which is one of the questions that's asked of you on 
your confirmation. I hope you will follow in their footsteps, 
and I would remind you again on the issue of Syria. Admiral 
Stavridis testified before this committee that Patriot missile 
batteries could be deployed from their current positions closer 
to the border with Syria, where they could help defend civilian 
populations in Syria and serve as a powerful deterrent to 
Syrian pilots. Do you agree with that?
    General Breedlove. I do, Senator.
    Senator McCain. Can Patriot missiles shoot down Scud 
missiles?
    General Breedlove. Yes, sir. In fact that's their primary 
duty as they're aligned right now.
    Senator McCain. Can they shoot down aircraft?
    General Breedlove. Yes, sir, they can.
    Senator McCain. General Mattis also testified that a fair 
amount of Assad's operational aircraft could be destroyed on 
the ground using standoff weaponry. Do you agree with that 
statement?
    General Breedlove. I do, sir.
    Senator McCain. So we really aren't putting pilots at risk 
and there's not a requirement to take out the air defenses 
around Damascus in order to assure the security of a no-fly 
zone. I think we all know that if pilots think they're going to 
fly into areas where their risk is incredibly high, as it would 
be with the Patriot missile and other capabilities, they would 
not do that.
    Both former Secretary of Defense Panetta and General 
Dempsey, the Chairman of the Joint Chiefs, both testified 
before this committee that they had supported supplying weapons 
to the rebels. Have you reached a conclusion on that? In Syria?
    General Breedlove. Senator, I think that if we could assure 
that the weapons were going to the right people and that we 
would not have to face them in the future, that it would be 
helpful to removing the regime.
    Senator McCain. I thank you for that answer. Obviously, the 
best way to assure that would be if there were a safe zone, 
such as Benghazi was in Libya, for the resistance to organize 
and control the flow of weapons. I think we all know, and I 
know you agree, that the situation has worsened over time, to 
the point where the jihadists are playing a greater and greater 
role in Syria, which obviously post-Assad, which will happen 
some day, is going to be incredibly complicated.
    Do you believe that, as opposed to 2 years ago, that 
Lebanon and Jordan are more or less stable than they were 
before the last 2 years?
    General Breedlove. Sir, I would say they are less stable, 
not because their intent is not good, but there is so much 
instability with the Arab Spring and, sir, a pretty large 
refugee problem at this point.
    Senator McCain. Of course you are aware that the Russians 
continue their flow of weapons into Bashar Assad's forces; and 
even now, later reports that the Iranians are not only 
providing weapons, but they're training, actually training 
people in Iran and sending them back into Syria. Have you heard 
those reports?
    General Breedlove. Sir, I have not, but I do know that in 
general we would not categorize Russia's support to us as 
helpful in this area now. I am not privy to those reports yet.
    Senator McCain. I think it's good to give them flack 
jackets. I don't think there's any way that can really 
seriously affect the equation on the ground. I--well, my 
opinion is well known.
    General Mattis recommended 13,600 U.S. troops and about 
half as many international troops in post-2014 Afghanistan to 
do counterterrorism and train and assist missions. Have you had 
a chance to look at that assessment of General Mattis'?
    General Breedlove. Sir, I have looked at General Mattis' 
testimony and other thoughts on 13,600. I think that it relates 
back to a comment I made earlier, Senator, that I think that 
our eventual number in Afghanistan is yet to be determined, but 
influencing that will be do we remain at 352,000 in the Afghan 
National Security Forces (ANSF) or do we come down to what was 
proposed at the Chicago summit of 230,000 and when that 
happens. If we keep the ANSF high through 2018, it should give 
us more flexibility on numbers. If we don't keep the ANSF 
number high, then that would probably cause input.
    Senator McCain. One of the things that is a little 
frustrating to some of us is we're sort of seeing a repeat of 
the Iraq scenario, in that we delay and delay and delay on 
these decisions. Meanwhile it puts Karzai and our friends in 
the region in an uncertain position. I hope that as soon as you 
are confirmed that you would in the deliberations urge a 
decision soon on the post-2014. We're into 2013. We need to 
have a firm decision as to what our troop strengths are going 
to be, what our presence, and what their role is going to be. I 
greatly fear the same kind of unraveling that we are seeing in 
Iraq today.
    Finally, you made a very strong statement to me in my 
office when we had the pleasure of our visit about 
sequestration. You mentioned that certain squadrons are having 
to stand down, that there are certainly decisions having to be 
made that are basically no-win decisions.
    When I asked you about the effect, especially since you 
have a couple of young members of your family here, the effect 
of sequestration on the decisions that these young officers, 
junior officers and mid-level officers, are going to be making 
about whether to remain in the Air Force and in the military, 
what's your personal view of that particular situation?
    General Breedlove. Senator, it's a great question and I'm 
happy to have an opportunity to comment. As I took command, the 
chief and I, we got out and talked to our troops. What I will 
do is just report to you things that I'm hearing from the 
troops. This concerns them greatly. It concerns them, will we 
have the wherewithal to do what we do? Will we be able to 
continue educational benefits that we thought were a part of 
our business? Will we be able to train and fight at the level 
that we expected to train and fight at?
    I would just say that, from the number of questions that 
the chief and I got as we have circulated the battlefield 
forward and in Europe, that this is a concern on the mind of 
our troops. I am concerned that it will impact the long-term 
retention, health, and welfare of our troops.
    Senator McCain. Thank you, General.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator King.
    Senator King. First, General, thank you very much for your 
service, and I am delighted to have you here. I, too, was 
struck by the number of times you moved. I, as a young man, 
worked on a moving truck for Allied Van Lines and we used to 
say that four moves equals a fire. You've been through it.
    As NATO reflects--and you mentioned this a bit in your 
testimony--on the experience in Afghanistan, what are the major 
learnings from that experience and how do you see that 
reflecting itself in future activities?
    General Breedlove. Sir, there are a couple of very 
positives that I think we should take from this experience. 
First of all, NATO in general and some of the partners has 
become much more interoperable. Much more of the troops have 
come up to the same level of standards. We use an acronym 
``TTP'' for ``tactics, techniques, and procedures''. We have 
standardized tactics, techniques, and procedures. We have 
brought their special forces very close to the level of ours. 
Their joint tactical air controllers (JTAC) on the ground, are 
acting almost interchangeably with our U.S. JTACs.
    I think the most positive gain out of a horrific situation 
is that our alliance has really begun to be much more jelled in 
its ability to employ interactively and mixed together because 
of the skill and capability of all.
    Sir, I would tell you that's also my number one concern. 
You asked about my concerns. That is that if we come out of 
Afghanistan we cannot allow what we have gained to fall back 
because it was bought with precious time and effort of our 
people. I think it's going to be important for me, if 
confirmed, to keep pressure on not only defense investment, but 
to keep pressure on our ability to train together and keep the 
standard of excellence high so that we can remain 
interchangeable.
    I believe one of the reasons that Libya went so well with 
NATO in the lead is because we have become so much more like 
each other in the way we do business.
    Senator King. I think that clearly is an important lesson.
    Just to be clear on the record, you've talked several times 
about the grounding of the, I think, it's four squadrons you 
said in Europe. Is that because of the sequester?
    Senator King. Sir, that's because of the budget effects of 
sequester, that's correct. It's not just Europe. These 
squadrons are grounded in the United States. In your States we 
have squadrons grounded.
    The lift and tanking squadrons are equally as affected. As 
was mentioned earlier, the effect of going from a fully mission 
capable air crew in a lift aircraft to an air crew that can 
simply do air-land, load, reload, it is a big effect on our 
military capability in a time, as has been captured by the 
chairman, a very volatile time.
    Senator King. You listed earlier all the qualifications 
that were being limited and the mission abilities that were 
being limited.
    I think it's important to emphasize that the sequester is 
not a 1-year deal. At least it's not according to current law. 
If nothing happens, it keeps going. This condition that you are 
in, unless it's alleviated in some way, would continue and, in 
fact, accelerate.
    General Breedlove. Yes, sir. I think that in my specific 
command as we service not only Africa but Europe, but our 
mission in Africa is growing now, which is a strain as well on 
our budget.
    Senator King. I heard recently on the news a member, not of 
this body, but a member of our Government, characterized the 
sequester as a ``home run''. I hope this gentleman will talk to 
you about the effect on our readiness, on our retention, and on 
our military.
    Another question, changing the subject, under your area of 
responsibility comes both Turkey and Israel. What's your 
assessment of the current relationship between Turkey and 
Israel, and are we headed for a better relationship? What are 
you hearing from your counterparts?
    General Breedlove. Sir, a month ago I probably would have 
had a negative report. There has been some work done by our 
senior leadership and Israel has come forward and talked to 
some of the problems that they've had with Turkey in the past. 
I now am cautiously optimistic. I think that this relationship 
is headed in the right direction. If confirmed, I will continue 
to try to foster that relationship.
    In my current capacity, I do today, because these are two 
incredible allies--Turkey is absolutely critical to us. Their 
geopolitical position, their moderate voice in this world--
there are so many things about Turkey that are absolutely dear 
to us. We cannot have two of our most important allies in an 
adversarial state.
    Senator King. Thank you.
    One final question. As we've been focused so much on the 
Middle East and on Afghanistan, attention has been shifted from 
the Balkans, which was a major area of concern a decade ago. 
What's the situation there? Are we comfortable with the 
circumstances and is there any need for concern or new 
attention to that region?
    General Breedlove. Sir, I would tell you that I am not 
comfortable with the Balkans. Progress has been made. We have 
brought the troops down to just about 5,000 now, of which about 
800 are United States. We need to bring that down lower. But I 
have heard the situation in northern Kosovo described as 
stagnant. We were making progress and now we have slowed down 
in that progress. That worries me because I think that our 
Nations are a little weary of that situation and want to move 
on. What I don't think we can do is totally take our eyes off 
of a situation that if not watched could possibly go in a 
direction we don't want it to go.
    I think that there are good things happening. There are 
great things happening in the training of the Kosovo Defense 
Force. But we need to keep our eye on the ball.
    Senator King. Thank you very much, General, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator King.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank you, General Breedlove and all of your 
family, for being here and for your service to our country.
    I wanted to ask you about our relationship with Russia, and 
in particular looking at the advance questions, you described 
Russia will remain the primary actor of regional concern 
through 2020. Why do you believe that Russia is the primary 
actor of regional concern?
    General Breedlove. Thank you, Senator. I think that I would 
try to put that in some context, and that is that Russia 
remains a very important influence with many of the nations on 
its periphery and nations that have been leaning more west than 
east and have become good allies--not allies, but have been 
great partners with us in places like Afghanistan and others.
    But these nations are clearly still tied to Russia for such 
things as energy needs, transportation, and others. There's 
lots of tentacles that go back and forth. Russia's ability to 
either help us or hinder us as we work with these nations I 
think is still very great.
    I do and I have been quoted often saying that I think we 
would be better off if we quit treating Russia or thinking of 
Russia as an enemy and try to bring them into a partnership as 
we deal with Europe and other places around the world. Russia 
has been very helpful with us in counter-piracy and other 
things outside of the European theater. I think that Russia 
still has deep influence in Europe. We need to try to find out 
how to work with them, as opposed to at them.
    Senator Ayotte. General, one of the things I wanted to get 
your view on is you said we need to stop treating Russia as an 
enemy. That strikes me as in line with when the administration, 
the Obama administration, came into office, the whole reset of 
the Russian relations. Yet if you look at the Russians' actions 
both in the United Nations and also on numerous issues, we have 
not gotten the reaction that we had hoped. In fact, if you 
think about issues like the adoption issue that obviously all 
of us have heard from our constituents on, which is just 
outrageous, to use children to advance a policy objective like 
that or to somehow think that they're going to punish the 
United States.
    I hear and I understand what you're saying, but we're not, 
in my view, getting the reaction that we would hope in turn 
from the behavior of the Russians. What is your view on that, 
and what are the differences that remain between us and how in 
your view are we going to improve our relationship with Russia 
in a way that protects our interests and those of our allies?
    General Breedlove. Ma'am, I could not agree with your 
assessment more. In fact, I've described the reset as sort of 
on pause. We had made some progress. There were some political 
changes in Russia and we are now sort of very much slowed down.
    I think that we have to continue to reach out. I do agree 
with your concern that this not become a one-way street and 
that we just give, give, give. I think that the principle of 
reciprocity is how we need to think about our work with Russia. 
But I don't think that we should stop. We need to keep working 
with them.
    As I mentioned, ma'am, before you were here, I have reached 
out to several very senior levels in their air force to 
establish dialogue so that we can begin to get some 
normalization of conversation and then do some military-to-
military work. If confirmed, I will continue the effort as the 
SACEUR and as the Commander in Europe.
    Senator Ayotte. I would agree with you on the reciprocity 
issue very much, because I feel like it has been a one-way 
street at the moment. The Russians, for example, if you look at 
conflicts like Syria, could have a major influential role, and 
yet they are actually fueling that conflict with their arms 
provisions. It's outrageous really. I think in many instances 
they have as much the blood of some of the Syrians that are 
being murdered on their hands as the Assad regime. I can't 
imagine why Russia would want to stand for that.
    One of the things that concerns me as well is the arms 
control agreements that we have with Russia. Do you understand 
whether, or if you can give us some insight, whether the Putin 
Government is in full compliance with all existing arms control 
agreements that we hold with them right now?
    General Breedlove. Ma'am, I could not comment on that at 
this time. But I will get back to you on that with a position 
and an answer.
    Senator Ayotte. I would appreciate that, because the 
administration, of course, has made some announcements in the 
press that there is some thought of further reducing our 
nuclear arsenal in some types of negotiations with the 
Russians. I think it's very important for us to understand what 
their posture is on existing arms agreements right now.
    [The information referred to follows:]

    Since U.S. European Command does not participate in the 
verification process for arms control treaties, I would refer you to 
the President's annual report, submitted through the Department of 
State, on ``Adherence to and Compliance with Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments'' required 
by section 403 of the Arms Control and Disarmament Act, as amended 
(title 22, U.S.C., section 2593a).

    Senator Ayotte. I would also express the hope, to the 
extent you weigh in on these issues, that they would, the 
administration, would seek to go through Congress on these 
types of issues, particularly with what we see happening in the 
world right now. You have in your area of responsibility, of 
course, Israel, with Iran marching toward a nuclear weapon, 
what we have happening in North Korea. I think this is a very 
important issue for Congress to weigh into, rather than just a 
unilateral agreement between Russia and the administration.
    Certainly in your role, if you're asked for advice, I hope 
that you will recommend that Congress be given the role, its 
constitutional role in this?
    General Breedlove. I will, Senator.
    Senator Ayotte. Okay, I appreciate that, General.
    You talked about your area of responsibility with Israel 
and the relationship that you have had based on your experience 
with the Israeli military. Do you believe it's important that 
Israel maintain its qualitative military edge over any 
potential adversary in the region?
    General Breedlove. I do, Senator, and that is one of the 
primary duties of EUCOM, to continue to make sure that that is 
upheld.
    Senator Ayotte. Why is that critical in light of the 
position we are in right now?
    General Breedlove. Senator, I think that it's pretty clear 
to all that Israel is in a tough place and the neighborhood is 
unsettled. I think that the Arab Spring has further unsettled 
the area, and the strategic depth that we talk about Israel 
having or lacking is only getting less. We need to make sure 
that Israel is able to respond capably with the weapons that 
enable them.
    Senator Ayotte. When you're confirmed for this position, 
what do you think that you could do to further deepen our 
relationship with Israel?
    General Breedlove. Senator, I think that, building on the 
success of Austere Challenge 12, we made a huge leap forward in 
our ability to interact in missile defense. We have been doing 
exercises such as Juniper Falcon and others that I've 
participated in, and Juniper Stallion, which I flew in, where 
we bring the interoperability of our conventional forces closer 
together.
    I believe we need to be very straightforward in our ability 
to interact with and come to those same TTPs we talked about 
before, make sure that our interoperability is high and our 
ability to support Israel is ready.
    Senator Ayotte. Thank you, General. I appreciate your being 
here today and look forward to supporting your nomination.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Kaine.
    Senator Kaine. Thank you.
    General Breedlove, what a treat to have you here, and to 
see your family and hear you talk about them with such pride is 
something that makes an impact on all of us. I have three 
youngsters, one a newly minted second lieutenant like one of 
your own and two artists. They all grew up eating the same food 
and breathing the same air, but they've all gone in very 
different directions, but we're proud of all of them.
    I want to start where Senator McCain finished with you, 
which is as you look at these budgetary uncertainties, 
sequester, we can talk about Air Command units standing down. 
We can talk about the effect on logistical operations, 
refueling, and airlift capacity. We can talk about a lot of 
things in the here and now, but there is a concern about 
tomorrow as well.
    As I talk to my son and his colleagues and others--recently 
I was at University of Virginia talking to a Reserve Officers' 
Training Corps (ROTC) group and one of the youngsters training 
to be an officer there said: I sign up voluntarily, knowing 
that I'm potentially going to face hostile fire, and I'm 
willing to do that. I'm willing to make a career decision that 
involves doing that. But I kind of have to wrestle with whether 
I want to make a career decision to do that if the support for 
me from Congress, budgetary support, is so uncertain.
    That was kind of a chilling thought of anything that I've 
heard about sequester as I've traveled around the Commonwealth 
of Virginia, and I've heard a lot about it because we're so 
connected to the military. The thing that probably has struck 
me the most is what it is as a young person being willing to 
face hostile fire, but having to ask yourself the question of 
should I do it if I'm not sure whether Congress is going to be 
there with the right kind of budget support for the work that 
we do.
    You testified about that a good bit already, but I'm really 
struck by that and it's a sobering thought for all of us. I 
wonder if you have any additional comment on that from what 
you've heard from your own troops?
    General Breedlove. Senator, you have it exactly right. Our 
troops, including my daughter and her husband, are concerned 
about these things and we've had these conversations. As I took 
over U.S. Air Force Europe and Air Force-Africa 9 months ago, 
the chief and I set a mantra: mission, airmen, families. We 
have to be able to keep the mission going. That is driving 
everything we do. But the way we get the mission done is 
through our airmen, and we have to set the airmen so that they 
can focus on their mission. If the families are not set, the 
airmen are not going to be set. These are inextricably tied.
    If confirmed, going forward in Europe, one of the concerns 
that I've talked about to my fellow commanders in Europe are 
the three things that my wife talks about every time we move: 
schools, housing, and access to medical care. If confirmed, 
Senator, that will be one of the first focus items I have 
across the broader EUCOM Command, because, as I said in the 
``Mission, Airmen, Families,'' if we can keep the family, which 
is at the base, squared away, then the airmen can focus on the 
mission, and that's where we have to be. In the case of EUCOM, 
then it would be our soldiers, sailors, airmen, marines, and 
coastguardsmen that we would be enabling.
    Senator Kaine. Excellent, excellent.
    Let me jump around a bit. What an awesome thing to be up 
for nomination to be SACEUR. Some pretty amazing people have 
had that title. That has to be--well, it's a good thing, but 
it's a humbling thing, too.
    Talk to me a little bit about that role, and in particular 
NATO lessons learned from Libya? You describe them in a 
positive way. We did well because we've gotten to be so much 
like one another in the way we approach these challenges. I'd 
like you to talk a little bit about that, what you meant by 
that, but then how you see that relationship going forward. To 
the extent that sequester and other budgetary uncertainty 
potentially jeopardize some of what we might be able to do in 
that NATO combined operation, I'd love to hear your thoughts.
    General Breedlove. Thank you, Senator. Very shortly, I 
would also say that, if confirmed, I would find myself sitting 
behind the desk that Eisenhower sat behind. I would tell you 
that my father from the State of Georgia would roll over in his 
grave at that thought, and some of my grammar school and high 
school teachers probably as well.
    Sir, as far as Libya and NATO, as in almost every case, 
there are good things that we learned and there are bad things 
that we learned. I highlighted a couple of the good things 
previously and those are that we have trained so much together 
and now we have fought beside each other in Afghanistan and 
other places for some time. What has happened is it has enabled 
us to be much more seamless across being able to employ the 
NATO force and being able to interchange NATO people, having a 
Belgian officer be your deputy commander and having a French 
officer be your chief of operations and having a German officer 
being your intelligence officer, and expecting that we would be 
able to execute at a very high level because of that 
interoperability. I think that's very important.
    Not to highlight the bad, but there are some bad things. 
What we did learn is that the depth of some of our partner 
nations and especially their sustainment to the fight is not 
very deep. We have work to do in weapons and the amount of 
weapons. We have work to do in very critical enablers that are 
going to be required for any force--air-to-air refueling 
capability and others.
    I think probably the most glaring thing we need to work on 
as an alliance is intelligence, surveillance, and 
reconnaissance. You can be very proud of your joint force. 
There is no one that does it like us. What we don't want to do 
is be the only supplier of that superb capability. We want to 
bring others along.
    If confirmed, Senator, those are going to be center in the 
heart of the shot pattern for what I'll do in NATO.
    Senator Kaine. One of the expectations that I would have as 
a Senator from Virginia, obviously, is the Allied Command 
Transformation is in Norfolk and so the working relationship 
with General Palomeros is something we would care deeply about 
as well.
    The Aegis ballistic missile defense system also has a 
Virginia tie to Dahlgren, where much of the research and work 
is done. That's a critical part of EUCOM's ability to address 
the ballistic missile defense issues. Could you give us just a 
quick update on the Phased Adaptive Approach?
    General Breedlove. Thank you, Senator. Yes, sir. Right now, 
as I mentioned earlier, the announcement that Phases 1, 2, and 
3 are firmly on track is a good one. The investments required 
to start Phase 2 are on track for putting in that first Aegis 
Ashore, as we call it. I believe that right now on Phases 1, 2, 
and 3 I have positive reports on how we're proceeding.
    Senator Kaine. Finally, I'll just comment that I agree with 
comments you've made earlier. I think the U.S.-Turkey 
relationship is one of the most strategically important right 
now, both because of the region, but also because of Turkey's 
important role in NATO. I was heartened to hear your comments 
and heartened to hear other reports that suggest that the 
Turkey-Israel relationship, which has been quite frosty--for a 
long time the military-to-military connection has been quite 
positive, but it's been quite frosty--seems to be getting 
better.
    Your testimony about Israel is also welcome. I'm going to 
be with Ambassador Oren, the Israeli Ambassador to the United 
States, tonight, introducing him to a large group of people in 
Richmond. He will be happy to hear of the importance you accord 
that relationship in your testimony.
    Thank you for your service and I look forward to supporting 
you.
    General Breedlove. Thank you, Senator.
    Chairman Levin. Thank you, Senator Kaine.
    I just have one question. Senator Inhofe has a question or 
two that he'll ask in round two, and then we'll be able, I 
think, to leave here in time to get over to vote at 11 a.m.
    General, you and I have spoken in my office about what are 
called residual value payments. We recently completed a 
committee report regarding the expenditures which we've made in 
certain facilities overseas that are being returned to a host 
nation and the improvement in those investments and the 
payments which are made by those host nations for those 
improvements.
    Under our law, those payments must be directed towards 
offsetting operation and maintenance costs and they must be 
directed according to law towards military construction 
projects which are identified in the Future Years Defense Plan, 
and they have to be used for Department priorities that are 
specified.
    Will you take a look at this issue and read this report 
when it comes out, because there's been some real significant 
problems in terms of the use of those payments, which are 
identified in our report. So you can get back to us after you 
have read that. Will you do that?
    General Breedlove. I will, sir. I did some work with this 
last night. I'm much smarter now about it. I understand that 
our staffs have cooperated to get this report out and I do 
commit to you to get to that report early if confirmed and get 
back to you.
    Chairman Levin. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I wasn't going to ask another question until Senator Kaine 
asked a question. In fact, I'd say the only answer that you 
gave during the course of this hearing that I would disagree 
with is your answer to Senator Kaine. We all know and I don't 
think anyone questions now that our intelligence assessment, 
going way back to 2007, that Iran would have the capability 
along with a delivery system by 2015--that's been consistent. 
I've often said that it's probably going to be earlier than 
that, judging from the miscalculation our intelligence made way 
back in 1998 on North Korea's ability to fire a multi-stage 
rocket, when they were off by 5 years.
    Anyway, I think that we can say that 2015's a critical 
time. Then, of course, I disagree with the changes that took 
place 4 years ago in terms of the ground-based interceptor in 
Poland. But assuming that we are where we are right now--and 
you talk about Phase 1, Phase 2, and Phase 3. I understand that 
in the SM-3 Block 1A, we're already there, then 2015 for the 
1B.
    But then the SM-3 Block 2A, which would be necessary for 
the protection of our NATO allies, is not scheduled until 2018. 
We have a 3-year period that concerns me. I'd like to have you 
tell me how you think you'd like to address that 3-year period, 
if that concerns you, if that increases risk, and of course 
risk means lives.
    General Breedlove. Senator, you're absolutely right about 
my answer. My answer was not about the timing in relation to 
the threat, let me make that clear. What I was trying to answer 
Senator Kaine, was that the program and the schedule to 
accomplish the things that we are doing----
    Senator Inhofe. Is on course?
    General Breedlove.--is on course.
    Senator Inhofe. Yes, I understand. But I'm suggesting the 
course is wrong.
    General Breedlove. Yes, sir. I understand that question 
completely now, and there are concerns about getting the 
appropriate coverage at the appropriate time. I think that one 
of the things we are having to do right now is talk to our 
fellow European nations about their contribution to EPAA and 
their bringing some capability to the task early.
    I am encouraged by the fact that we have our Dutch friends 
upgrading four of their cruisers to Aegis-class capability to 
help us in this battle. I am also encouraged by the fact that 
several of the nations, France, Germany, and others, are 
looking at voluntary national contribution of not only their 
short-range capability, but some of their radars.
    I don't want to take too much of your time, but I do see 
positive movement in the nations leaning forward now to be a 
contributing part both kinetically and as basing nations in 
this effort.
    Senator Inhofe. I know this is not directly in your new 
position, but you're the expert in this and I appreciate your 
background and knowledge. I would think that if you're looking 
for that 3-year gap to be filled by more assertive progress 
from our NATO allies, they're the ones that are at risk. Is 
there any reason they would not do everything they can to help 
fill that 3-year gap?
    Now, obviously the chairman wouldn't want me to get into 
the third site discussion and I'm not going to do that. But on 
this one, I would think that they would be the ones that would 
want to go out of their way and do what is necessary, 
specifically looking at that 3-year gap.
    General Breedlove. I agree with you, Senator, and I think 
Admiral Stavridis has said in the past that the store is open, 
we're ready for your contributions. If confirmed, I will 
continue the pressure that he's already started on our allied 
nations to help us bring that capability to the table.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Kaine, you all set?
    Senator Kaine. Yes.
    Chairman Levin. We have standard questions which we ask of 
our military nominees, which I'll ask you now, in order to make 
sure that this committee and other committees of Congress are 
able to receive testimony, briefings, and other communications 
of information. Here are the questions:
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Breedlove. Yes, Senator.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    General Breedlove. I do.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Breedlove. I have not.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Breedlove. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Breedlove. I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Breedlove. They will.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    General Breedlove. I do.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General Breedlove. I do.
    Chairman Levin. Yes, Senator Inhofe?
    Senator Inhofe. Just one comment. Of the questions the 
chairman asked you, the most difficult one is the second one. 
You have answered that correctly, but that's the most difficult 
one because you still have a Commander in Chief. We understand 
the line of command. Yet there are some things that we'll need 
to know, particularly with the upcoming activity we'll have, 
for your honest answer, and we'll be looking forward to that.
    General Breedlove. Yes, sir.
    Chairman Levin. Those are the answers we received today 
even before you were confirmed. So we know you'll continue in 
that same vein after you're confirmed, which we would hope and 
expect will be very promptly.
    We thank you. We thank your family and those many folks who 
have come here today to support you.
    We will stand adjourned.
    [Whereupon, at 10:59 a.m., the committee adjourned.]

    [Prepared questions submitted to Gen. Philip M. Breedlove, 
USAF, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. They have 
also clarified the responsibility of the Military Departments to 
recruit, organize, train, equip, and maintain forces for assignment to 
the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions or the Special Operations reforms?
    Answer. Successful operations around the world from Iraq and 
Afghanistan to Libya demonstrated the importance of Goldwater-Nichols. 
I learned the importance and value of joint training early in my career 
as an air liaison officer working with the Army in 1985. I am convinced 
the success of all of our operations over the past years is directly 
attributable to the joint training and doctrine that came out of 
Goldwater-Nichols. I do not see the need for modifications at this 
time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not see the need for modifications at this time.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. European Command (EUCOM) and NATO's Supreme Allied 
Commander, Europe (SACEUR)?
    Answer. The Commander of the U.S. European Command is responsible 
for giving authoritative direction to subordinate commands and forces 
necessary to carry out all U.S. military operations and activities 
across the 51 independent states in the European Command Area of 
Responsibility (AOR) in pursuit of U.S. national military objectives. 
This AOR includes all of Europe (including Turkey), the Caucasus 
Region, and Israel. The commander is also responsible for the health, 
welfare and security of the approximately 64,000 servicemembers forward 
deployed within that AOR.
    The NATO North Atlantic Council and Military Committee assigns 
specific roles and duties to SACEUR. These include:

        <bullet> Overall command of all NATO military operations 
        regardless of geographic boundaries.
        <bullet> Strategic planning to include military planning for 
        the full range of Alliance missions and contributions to crisis 
        management and effective defense of NATO territory and forces.
        <bullet> Identifying and requesting forces for the full range 
        of Alliance missions.
        <bullet> Strategic Analysis: In conjunction with Supreme Allied 
        Commander for Transformation, supports NATO's Defense Planning 
        Process and conducts strategic level analysis to identify and 
        prioritize type and scale of NATO's critical capability 
        shortfalls.
        <bullet> Operational Leadership: Executes military measures 
        within the capability of the command to preserve or restore the 
        security of NATO nations.
        <bullet> Transformation: Cooperates with the Supreme Allied 
        Commander for Transformation (SAC-T) on integrating 
        transformation efforts.
        <bullet> Crisis Management. Continually monitors and analyses 
        the international environment to anticipate crises, and where 
        appropriate, take active steps to prevent them from becoming 
        larger conflicts.
        <bullet> Strategic engagement and partnership building: 
        Develops and participates in military-to-military contacts and 
        other cooperation activities with NATO partners around the 
        globe.
        <bullet> In conjunction with Supreme Allied Commander for 
        Transformation, conducts combined and joint training and 
        exercises. This role will be critical to the implementation of 
        the NATO connected forces initiative designed to maintain 
        interoperable forces in the post ISAF environment.

    The responsibilities of the Commander EUCOM and the SACEUR are 
complementary. The fact that they have traditionally been vested in one 
officer facilitates near-seamless coordination between the U.S. and 
NATO military command structures.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. As Commander, U.S. Forces in Europe, Commander, U.S. Air 
Forces Africa, and Commander, NATO Allied Air Command, in addition to 
my six previous assignments in Europe, I have had the privilege of 
working closely with our joint forces, NATO Allies, and coalition 
partners. During these assignments, I have had the opportunity to meet 
with several Ministers and Chiefs of Defense in Europe, providing me a 
unique opportunity to develop lasting relationships. Recent operations 
in Europe and Africa have continued to reinforce my belief in the 
criticality of these partnerships and inspired confidence in future of 
U.S. and European relations. If confirmed, I believe my knowledge of 
the region and familiarity with the Alliance, coupled with these 
personal relationships, will enhance my ability to perform command 
duties for both EUCOM and Supreme Headquarters Allied Powers Europe 
(SHAPE), and contribute to our Nations' shared security objectives.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
EUCOM, or NATO SACEUR?
    Answer. If confirmed, I will engage with key officials and 
personnel within the executive and legislative branches of the U.S. 
Government to uphold and advance the national policies and interests of 
the United States in the European theater. To this end, I will also 
engage with the governments and militaries of our allies to understand 
the magnitude and interdependent issues within the region. I will seek 
the cooperation of the Alliance leadership to work together to engage 
on vital regional issues. I will also continuously improve my 
understanding of the history and culture of the region.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, EUCOM/NATO SACEUR, 
to the following:
    The Secretary of Defense.
    Answer. The Secretary of Defense exercises authority over the Armed 
Forces of the United States through the EUCOM Commander for those 
forces assigned to the EUCOM AOR. The EUCOM Commander exercises command 
authority over assigned forces and is directly responsible to the 
Secretary of Defense for the performance of assigned missions and the 
preparedness of the Command.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense is delegated full power and 
authority to act for the Secretary of Defense and to exercise the 
powers of the Secretary on any and all matters for which the Secretary 
is authorized to act pursuant to law. The EUCOM Commander coordinates 
and exchanges information with the Deputy Secretary on matters 
delegated by the Secretary. The Commander directly communicates with 
the Deputy Secretary on a regular basis.
    Question. The Under Secretary of Defense for Policy.
    Answer. A direct command relationship between the Under Secretary 
of Defense for Policy and the EUCOM Commander does not exist. However, 
the EUCOM Commander regularly interacts, coordinates and exchanges 
information with the Under Secretary of Defense for Policy on policy 
issues relating to NATO, European, and Eurasian affairs. The Commander 
directly communicates with the Under Secretary of Defense for Policy on 
a regular basis.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. There is not a direct command relationship between the 
Under Secretary of Defense for Intelligence and the EUCOM Commander. 
However, the EUCOM Commander regularly interacts with, coordinates and 
exchanges information with the Under Secretary of Defense for 
Intelligence on intelligence related matters.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. There is not a direct command relationship between the 
Assistant Secretary of Defense for International Security Affairs and 
the EUCOM Commander. The EUCOM Commander and the Assistant Secretary of 
Defense for International Security Affairs work together on 
coordinating international security policy and strategy.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman functions under the authority, direction and 
control of the President and Secretary of Defense. The Chairman 
transmits communications between the President and Secretary of Defense 
and the EUCOM Commander, as well as oversees the activities of the 
EUCOM Commander as directed by the Secretary of Defense. As the 
principal military advisor to the President and the Secretary of 
Defense, the Chairman is a key conduit between the combatant commander, 
interagency, and Service Chiefs.
    The EUCOM Commander keeps the Chairman informed on significant 
issues regarding NATO and the EUCOM AOR. The Commander directly 
communicates with the Chairman of the Joint Chiefs of Staff on a 
regular basis.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of Military Departments are responsible for 
administration and support of forces that are assigned or attached to 
the EUCOM Commander. The Secretaries fulfill their responsibilities by 
exercising administrative control (ADCON) through the Service Component 
Commands assigned to EUCOM.
    Question. The other combatant commanders, in particular Commander, 
U.S. Central Command and Commander, U.S. Africa Command.
    Answer. Formal relationships between the EUCOM Commander and the 
geographic and functional combatant commanders derive from command 
authority established by title 10, U.S.C., section 164. Combatant 
commanders closely coordinate as necessary to accomplish all assigned 
missions.
    Question. The NATO Secretary General.
    Answer. The NATO Secretary General is appointed by the 28 Alliance 
Heads of State and Government. He chairs the North Atlantic Council, 
the principal decisionmaking body of the Alliance. The SACEUR carries 
out roles and missions assigned by the North Atlantic Council, and 
directly communicates with the Secretary General on a regular basis.
    Question. Commander, International Security Assistance Force.
    Answer. The EUCOM Commander has no formal relationship with 
Commander, ISAF; however, Commander, ISAF, is ``dual-hatted'': 1. As 
the Commander U.S. Forces in Afghanistan he reports to Commander, U.S. 
CENTCOM (national command and control); 2. The Supreme Allied 
Commander, Europe exercises command authority over the Commander, ISAF, 
via the Commander, Joint Forces Command Brunssum, in the Netherlands 
(operational command and control).
    Question. The Supreme Allied Commander for Transformation.
    Answer. Both NATO's Strategic Commanders, SACEUR and Supreme Allied 
Commander Transformation (SAC-T), carry out roles and missions assigned 
to them by the North Atlantic Council. SACEUR and SAC-T work together 
to ensure the transformation of NATO's military capabilities and 
interoperability that support Allied Command Operations.
    Question. The North Atlantic Council.
    Answer. The North Atlantic Council is the principal policy and 
decisionmaking body of NATO. SACEUR carries out roles and missions 
assigned by the North Atlantic Council.
    Question. The U.S. Permanent Representative to the North Atlantic 
Council.
    Answer. There is not a direct command relationship between the U.S. 
Permanent Representative to the North Atlantic Council and either the 
EUCOM Commander or the SACEUR. The North Atlantic Council provides 
direction to NATO military authorities and the U.S. Permanent 
Representative is 1 of 28 members of the North Atlantic Council. The 
EUCOM Commander works with the U.S. Permanent Representative on matters 
of mutual interest, such as EUCOM military operations and security 
cooperation activities that support U.S. objectives and military 
contributions to NATO.
                            major challenges
    Question. In your view, what are the major challenges and problems 
you would confront if confirmed as the next Commander, EUCOM, and 
SACEUR?
    Answer. If confirmed, one of the biggest challenges I will face is 
managing the evolution of NATO, specifically past its operational focus 
in Afghanistan. The Alliance has evolved from a Cold War construct to 
one with ambitious aspirations and capabilities after integrating 
former Warsaw Pact and Eastern European Soviet Republics and building 
an out of area expeditionary capability. As EUCOM Commander, my 
challenge is to work diligently to support the broader U.S. Government 
effort to ensure that the Alliance makes the right choices to maintain 
its capability, capacity, and credibility.
    The second challenge is the impact of the sequestration reductions 
and the continuation of those reductions in the out years. 
Sequestration negatively affects both theater operations and EUCOM's 
ability to support the U.S. Defense Strategy by further reducing an 
already declining budget. This includes an increased risk to access, 
degradation of the security cooperation relationships forged over 
numerous years, and reduced partner participation in operations.
    The third challenge is the potential for a long-term continuation 
of the Arab Spring and its impact to Israel's shrinking strategic 
depth. Currently Iranian's malign influence in the politics of Syria 
and Lebanon are a constant concern. Of specific concern for Israel, 
aside from Iran's nuclear ambitions, are security considerations 
relative to Syrian chemical weapons and high end conventional weapons, 
the decline in influence of Egypt's military and the resulting 
instability in the Sinai and the strength of Lebanese Hezbollah. This 
instability will remain throughout the region for some time. Our 
challenge is to lead the military effort to assure Israel of U.S. 
resolve to guarantee its security.
    The fourth challenge I see is the security impact of the European 
economic crisis. The result of the financial crises upon European 
militaries is magnified as national Gross Domestic Products (GDP) have 
fallen, and the percentage of GDP dedicated to defense spending has 
been cut as governments struggle to deal with reduced revenue and 
increasing deficits.
    The fifth challenge I see is the growing asymmetric terrorist 
threat in Europe from al Qaeda and other Islamist extremist groups with 
extensive ties to Western Europe. Europe is an important venue for 
recruitment, financing, and attacking U.S. and western interests. The 
effects of the financial crisis and austerity measures on countries 
with historical terrorism and anarchism could spark new forms of 
politically and economically-driven terrorism.
    The sixth challenge I see is dealing with Russia, which remains an 
aspirational superpower but is hindered by endemic deficiencies. Russia 
will remain the primary actor of regional concern through 2020 by 
virtue of its geographic position, natural resource wealth, military 
forces, and desire for regional influence. However, a number of 
systemic deficiencies, such as mounting internal stressors--politico-
economic, socio-cultural, and demographic--will continue to challenge 
its aspirations. The U.S. and NATO will need to continue to assure our 
allies and partners, who live in the Russian self-declared ``sphere of 
privileged influence,'' of our resolve.
    The seventh challenge I see is the continued risk of conflict in 
the Caucasus and Balkans. Chronic ethnic enmity, virulent Islamism/
Islamist influence coupled with socio-economic privations, and the 
general intractability of grievances plague the Caucasus and Balkans to 
varying degrees. Our challenge is to carefully encourage our European 
Allies and partners to continue their commitments to regional security, 
while encouraging the development of security capabilities that do not 
exacerbate local tensions.
    Another important issue is improving our comprehensive readiness to 
face 21st century challenges, specifically the threat of malicious 
cyber activity. Our primary focus here should be assisting our allies 
and partners in the defense of their critical information systems, and 
to develop and mature their cyber defense capabilities, programs, and 
processes.
    The last significant challenge I see is maintaining our force 
laydown in today's austere environment. While combat forces receive the 
bulk of attention during force restructuring, the capabilities garnered 
from critical enablers (i.e., medical, police, intelligence, logistics) 
are equally as important. The challenge we have is balancing our 
strategic pivot to the East while highlighting the critical role our 
European force structure plays in assuring Allies and guaranteeing 
continued U.S. access to a critical region of the world. This access 
will remain important to U.S.-led global operations across multiple 
theaters, and cannot be guaranteed if we abdicate our European 
footprint.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. Despite budget reductions, EUCOM must be at the forefront 
of revitalizing and supporting NATO, highlighting the critical role the 
U.S. partnership plays to ensure the Alliance's credibility, 
particularly with regard to our Article 5 commitments. A significant 
component of this effort will be our role in a renewed commitment to 
the NATO Response Force. This commitment will ensure our NATO allies 
continue to meet high standards for interoperability and readiness. We 
can also incorporate NATO Smart Defense initiatives into our planning 
process, to guide our engagement and help ensure that NATO forces 
maintain a credible mix of expeditionary forces.
    Next, we must recognize the unique opportunity the economic 
downturn presents to help European nations examine defense and force 
structure inefficiencies. Stark fiscal realities leave political room 
for serious force structure and capability changes consistent with the 
vision of Smart Defense. We must also continue to coordinate our 
efforts across a broad spectrum of actors, specifically with the 
interagency and other geographic and functional commands. This 
cooperation can be expanded, as we leverage NATO training and 
standardization as a global benchmark for interoperability.
    As a command, we must continue to invest in interagency cooperation 
and collaboration to reinforce a whole-of-government approach to 
numerous challenges. We must also look for ways to enhance security 
cooperation planning by working with those allies who conduct security 
cooperation consistent with our interests.
    Next, we will emphasize civilian-military opportunities for nation 
engagement, particularly in the areas of disaster preparedness and 
foreign consequence management by leveraging private entities. This 
will encourage regional approaches to collaboration within areas like 
the Balkans and Caucasus in order to bolster stability.
    We must also emphasize technology and innovation to provide a 
backstop to decreasing resources, while diminishing our vulnerabilities 
to new asymmetric threats. The growing cyber threat must be addressed, 
while seeking ways to mitigate the loss of valuable border protections 
within the European theater. These physical border protections in many 
cases no longer exist. Technological solutions to tracking illicit 
materials, such as biological, chemical and radiological agents, must 
be found.
    Finally, we must continue to seek zones of cooperation with Russia. 
Successful avenues to date have included the Arctic Council, health and 
bio-surveillance arenas, combating terrorism, and counter-piracy. We 
must encourage Russia to play a more constructive role in European and 
global security and foreign policy.
                 defense department strategic guidance
    Question. The January 2012 Department of Defense (DOD) Strategic 
Guidance, entitled ``Sustaining U.S. Global Leadership: Priorities for 
21st Century Defense,'' discusses the importance of Europe as ``our 
principal partner in seeking global and economic security.'' At the 
same time, the DOD Strategic Guidance calls for a rebalancing of U.S. 
military posture toward the Asia-Pacific and Middle East regions.
    Do you agree with the strategy outlined in the January 2012 DOD 
Strategic Guidance?
    Answer. Yes, I do.
    Question. In your view what will be the major impact of that 
strategy on EUCOM and what changes, if any, would EUCOM need to make to 
implement that strategy?
    Answer. The January 2012 Defense Strategic Guidance mentions Europe 
and NATO prominently, and with good reason. As it says on page 2, 
``Europe is home to some of America's most stalwart allies and 
partners, many of whom have sacrificed alongside U.S. forces in 
Afghanistan, Iraq, and elsewhere.'' Europe is primarily a security 
producer, rather than a consumer, and EUCOM's strategy must endeavor to 
bolster this ability and commitment to providing security. To this end, 
one of EUCOM's key priorities is sustaining the U.S. relationship with 
its highly capable allies, as well as the sustainment of those allies 
who have recently developed capabilities and interoperability with U.S. 
forces. EUCOM will also look to grow its links to NATO, bolstering the 
viability of this vital Alliance, which will serve to ensure that 
European nations continue to approach global security issues through 
the NATO Alliance, and ensure that European and U.S. viewpoints are 
weighed together in the decisionmaking process. By bringing attention 
to the deep and valuable contributions of the Euro-Atlantic Alliance to 
U.S. national security and global security efforts, EUCOM supports the 
unique and valuable role that these contributions make, and the 
strategic access and global reach they provide.
    In order to implement this strategy, EUCOM must look to develop 
low-cost, innovative ways to emphasize force interoperability, while 
encouraging European allies to conserve resources by adopting the NATO 
``Smart Defense'' program. One of these new methods will be the 
reinvigorated U.S. contribution to the NATO Response Force (NRF), which 
will mitigate force structure reductions in Europe by sustaining and 
improving interoperability. Over the long term, the NRF will be a vital 
asset for post-ISAF interoperability and NATO's Connected Forces 
Initiative. The NRF will also serve as a valuable tool for evaluating 
the status of European forces. As the most likely companions in any 
security effort, from humanitarian assistance to full-spectrum 
conflict, the United States must have confidence in the 
interoperability and readiness of European forces.
    The planned reduction of NATO forces supporting ISAF, combined with 
U.S. reinvigoration in the NRF, provides a unique opportunity for EUCOM 
to support NATO's Connected Forces Initiative and make adjustments to 
both commands' exercise programs, committing to exercising high-end 
capabilities and training. Conducting exercises that test these high-
end capabilities, once common, have reduced markedly in the face of 
operational commitments. Exercises that bring together several NATO 
nations, focused on advanced training objectives that exercise a joint 
force across a broad spectrum of threats, will ensure NATO force 
relevance and flexibility. After 10 years of combat deployments against 
an asymmetric enemy, NATO will need to dedicate itself to flexible 
training that emphasizes underutilized skill sets (for example, naval 
and air warfare), while incorporating lessons learned from recent 
conflicts. Additionally, a small EUCOM investment in some of these 
exercises provides the opportunity for newer (i.e. Eastern European) 
members of the Alliance, as well as other NATO partners, to pair with 
more mature Allies, continuing to burden-share security cooperation 
while raising the overall quality of NATO forces.
    In response to shared environments of fiscal austerity, NATO has 
embraced the idea of collective resource pooling through the Smart 
Defense initiative. Alignment of EUCOM engagement with NATO capability 
targets will ensure U.S. bilateral efforts complement NATO's 
multilateral efforts. Through this improved cooperation, EUCOM can 
reinforce NATO's efforts to maintain a credible mix of expeditionary 
forces available for burden-sharing in conflicts that would otherwise 
be shouldered by U.S. forces alone. Supporting an initiative such as 
Smart Defense should not come at the expense of jeopardizing NATO's 
Article 5 commitments and defense spending requirements. EUCOM must 
ensure waste or unnecessary capabilities are trimmed and strengths are 
retained. EUCOM should engage with the Smart Defense structure to 
ensure a holistic approach to future NATO capability requirements.
    Finally, EUCOM has an opportunity to enhance its security 
cooperation planning by reaching out to Allies who are themselves 
conducting some level of security cooperation in the theater. EUCOM can 
work together with these nations to openly discuss mutual goals and 
plans and gain efficiencies from knowing what engagements other nations 
are performing in various regions, what effects are desired in these 
regions, and what partnering possibilities exist for theater-wide 
security cooperation. Fiscal reality drives this consideration, but so 
does strategic sense. Such cooperation can help to smooth future 
operational interaction and pair high-end allies with developing 
nations to establish theater relationships that will bolster European 
security and reduce U.S. resource commitments.
               nato commitments on afghanistan transition
    Question. At the NATO Summit in Chicago in May, NATO members 
committed to promoting a stable and secure Afghanistan and to 
``preventing Afghanistan from ever again becoming a safe haven for 
terrorists that threaten Afghanistan, the region, and the world.'' NATO 
members also reaffirmed their commitment to the International Security 
Assistance Force (ISAF) mission in Afghanistan through 2014, when the 
transition to Afghan National Security Forces (ANSF) having the 
security lead throughout Afghanistan will be completed and the NATO 
combat mission will end.
    Do you agree with the goals and transition plan for the ISAF 
mission endorsed at the NATO Chicago Summit?
    Answer. Yes, I do.
    Question. What are the major challenges you foresee, if confirmed 
as the next Commander, EUCOM and SACEUR, in implementing the transition 
plan for Afghanistan?
    Answer. Over the next 20 months, we must fully recruit, field and 
ensure the sustainment of the ANSF while we shift the main effort for 
security lead to the Afghans in 2013. We must prepare for the Afghan 
Presidential election, while redeploying thousands of ISAF forces and 
restructuring our basing posture so that we are ready for the post-2014 
mission.
    Question. How would you address these challenges, if confirmed?
    Answer. I would continue the work in progress, and ensure that 
redeployment mechanisms and routes are feasible and practical for ISAF 
forces.
      building and sustaining the afghan national security forces
    Question. The NATO Training Mission in Afghanistan (NTM-A) is 
responsible for building the ANSF to an end strength of 352,000 by this 
fall, consisting of 195,000 Afghan National Army soldiers and 157,000 
Afghan National Police personnel.
    What is your assessment of the NATO Training Mission in 
Afghanistan, and what changes, if any, would you recommend for the NTM-
A, if confirmed?
    Answer. The NATO Training Mission in Afghanistan or NTM-A is truly 
a success story. It has changed over time as the ANSF capability has 
developed, and will continue to do so.
    Question. In your assessment, are the current target end strengths 
for the ANA and ANP sufficient for Afghan security forces to assume 
full responsibility for security and stability in Afghanistan by 2014?
    Answer. Yes, they are. The target strengths are important, but so 
are the quality, capabilities, and competence of the force. Improving 
these aspects will be a significant part of the Security Force 
Assistance Teams work from now until the end of 2014, and beyond in the 
post-2014 mission.
    Question. At the NATO Chicago Summit, the ISAF participating 
countries called for future reductions in the size of the ANSF after 
2014 to be ``conditions-based.'' At the same time, the ISAF 
participating countries discussed a ``preliminary model'' for the 
future size of the ANSF of around 230,000, with an estimated annual 
cost of $4.1 billion, which would be subject to regular review in light 
of security developments.
    Do you agree that any reductions in the ANSF after 2014 from an end 
strength of 352,000 need to be conditions-based in light of the 
security situation in Afghanistan at the time the reductions would 
occur?
    Answer. The size and balance of capabilities across the ANSF after 
2014 will ultimately be a decision for the sovereign Government of 
Afghanistan. The financial contributions by the current ISAF nations 
and other countries need to be channeled through a transparent and 
accountable mechanism that is open to audit by those contributing 
Nations.
    Question. What should be NATO's role in assessing the security 
conditions in Afghanistan for purposes of determining future force 
requirements for the ANSF after 2014?
    Answer. The future force requirements for the ANSF after 2014 will 
be a decision for the sovereign Government of Afghanistan, with 
assistance and advice from the post-2014 NATO led International 
Training, Advisory, and Assistance Mission.
             nato training mission in afghanistan post-2014
    Question. In your view, what should be the objectives and 
priorities for a possible NATO training mission in Afghanistan post-
2014?
    Answer. The objectives and priorities were agreed by NATO Nations 
and partners in the North Atlantic Council (NAC) Initiating Directive 
at the Defense Ministerial meeting last October and reaffirmed in the 
February Defense Ministerial meeting. The NATO-led post-2014 engagement 
will train, advise, and assist the Afghan National Security Forces in 
line with the NATO-Afghanistan Enduring Partnership declaration.
    Question. If confirmed, what recommendations, if any, would you 
have for modifying the NATO training mission in Afghanistan after 2014?
    Answer. There is still much work to be completed on the post-2014 
mission. In particular, the Concept of Operations is currently being 
developed for endorsement by the Military Committee and subsequent 
approval by the North Atlantic Council. Once this is approved, the 
Operation Plan will be developed.
                     insider threat in afghanistan
    Question. The recent rise in the number of attacks by individuals 
in Afghan uniform on U.S. and coalition soldiers, so-called ``green-on-
blue'' attacks, has raised concerns about the safety of our soldiers 
and the success of the transition plans in Afghanistan. ISAF and Afghan 
military leaders have announced a number of new or expanded precautions 
to address the insider threat, including increased Afghan 
counterintelligence efforts to identify Taliban infiltrators, 
additional cultural sensitivity training, and expanding the ``Guardian 
Angel'' program to protect against the insider threat in meetings 
between coalition and Afghan forces.
    To what do you attribute the recent increase in the number of 
green-on-blue attacks?
    Answer. These attacks are an insurgent tactic, just like the threat 
of Improvised Explosive Devices (IEDs).
    Question. What is your assessment of the measures that have been 
taken to address the insider threat?
    Answer. We have analyzed these attacks, and developed tactics, 
techniques, and procedures to counter them. The measures we have taken 
to mitigate these attacks in conjunction with the Afghans are working. 
(20 incidents July-September 12, 10 incidents October-December 13, 3 
incidents January-March 13)
    Question. If confirmed, what additional steps, if any, would you 
recommend?
    Answer. It is important to recognize that the number of insider 
attacks has decreased since the summer of last year (20 incidents July-
September, 10 incidents October-December, 3 incidents January-March). 
The measures taken across the force are having a positive impact, and I 
want to ensure we continue to aggressively implement those measures 
while maintaining the strong personal bonds that have proven effective 
at the tactical level.
    Question. What is your assessment of the impact of these insider 
attacks on morale among U.S. and allied forces in theater?
    Answer. These attacks do have the potential to damage trust between 
collation and Afghan forces, however close cooperation and our strong 
relationship with the ANSF have been invaluable to tackling this common 
threat.
    Question. In light of the insider threat, do you believe ISAF 
should reconsider its plan to embed small units of U.S. and coalition 
military personnel with Afghan military units to advise and assist 
those units as the Afghan forces transition to the security lead?
    Answer. No. The plan is correct and will ensure the ANSF continue 
to advance their military capability. The security of U.S. and 
coalition military personnel is improved by building close personal 
relationships with the ANSF they advise and assist.
                       eucom's strategic missions
    Question. In your view, what are the key strategic missions of U.S. 
European Command?
    Answer. We derive our key strategic missions from the Command's 
formal mission statement: ``U.S. European Command conducts military 
operations, international military engagement, and interagency 
partnering to enhance transatlantic security and defend the United 
States forward.'' Given this mission statement, as well as the Guidance 
for Employment of the Force issued by the Office of the Secretary of 
Defense, EUCOM's key strategic missions are:

        <bullet> Posture EUCOM forces to execute high-priority 
        contingency operations;
        <bullet> Sustain the trust, relationships and interoperability 
        forged over the past decade with our Allies and partners; 
        aligning our efforts with NATO Targets and Partnership Goals;
        <bullet> Contribute EUCOM forces and enable European force 
        generation to support an effective and responsible transition 
        in Afghanistan, ensuring Afghanistan's security while assuring 
        our NATO allies and partner nations of the U.S. commitment;
        <bullet> Nurture strategic relationships and maintain the 
        necessary force posture to enable continued access--thereby 
        ensuring United States freedom of action and global reach;
        <bullet> Prevent violent extremist organizations (VEOs) from 
        establishing footholds in Europe or obtaining or using weapons 
        of mass destruction; through close coordination with the other 
        global and functional combatant commands, minimize the seams 
        that these VEO's often operate in;
        <bullet> Advance NATO European Ballistic Missile Defense 
        through an integrated approach built on balanced contributions;
        <bullet> Ensure secure cyber access to enable our other 
        missions and improve collaborative information sharing across 
        all security levels;
        <bullet> Combat transnational organized crime to reduce the 
        effects of trafficking and the monies available to fund illicit 
        activities;
        <bullet> Support continued defense reform and prevent the 
        escalation of local crises into regional conflicts, 
        particularly in the Balkans and Caucasus.

    Considering these missions in the context of near-term challenges, 
EUCOM derives the following Command priorities:

        <bullet> Ensure readiness to execute EUCOM's high-priority 
        contingency operations;
        <bullet> Preserve our strategic partnerships to include;

                <bullet> Sustain our relationship with high-end allies 
                ensuring a strong NATO Alliance;
                <bullet> Preserve the recently developed partner 
                capability and interoperability;
                <bullet> Maintain regional stability and security;

        <bullet> Enable a successful ISAF transition;
        <bullet> Counter transnational threats, focusing on missile 
        defense, weapons of mass destruction, counter-terrorism, 
        illicit trafficking, counter-piracy and threats from 
        cyberspace;
        <bullet> Maintain United States' strategic access across Europe 
        in support of global operations;
        <bullet> Focus on four key countries:

                <bullet> Israel, to maintain a strong partnership;
                <bullet> Russia, to encourage areas of cooperation;
                <bullet> Turkey, to reinvigorate our relationship;
                <bullet> Poland, to enhance the realization of its 
                potential.
                     u.s. force structure in europe
    Question. The January 2012 Defense Strategic Guidance stated that 
there is a strategic opportunity to ``rebalance the U.S. military 
investment in Europe.'' Currently there are approximately 70,000 U.S. 
military personnel stationed in the European area of responsibility. In 
January, the Department of Defense announced additional reductions in 
U.S. forces in Europe, including the drawdown of two of the four Army 
Brigade Combat Teams (BCTs) stationed in Europe by the end of 2013 and 
the inactivation of one A-10 squadron from Germany in 2013. In 
addition, U.S. Army Europe has plans to consolidate and reduce its 
footprint from 16 garrisons today to 7 garrisons by 2017.
    In answer to questions in advance of the hearing in July on his 
nomination to be Chief of Staff of the Air Force, then-U.S. Air Forces 
Europe Commander General Mark Welsh said that he would support further 
consideration of reductions and consolidation opportunities in the Air 
Force posture in Europe.
    Do you support the reductions in U.S. force posture in Europe 
announced earlier this year?
    Answer. Yes. The risk posed by the force reductions announced in 
2012 is manageable, and can be reasonably mitigated by employing 
rotational forces, to include a CONUS-based brigade fully dedicated to 
NATO, as well as implementing the posture initiatives described below. 
Our successful efforts to revitalize the transatlantic link, our 
unwavering commitment to the defense of Europe, and 65 years of 
transatlantic cooperation have lowered threat levels on the continent, 
and continue to serve the United States as a vital geostrategic 
platform to support our enduring global security requirements. Combined 
with the drawdown of operations in Afghanistan, this creates a 
strategic opportunity to modernize the U.S. military investment in 
Europe, moving from a focus on current conflicts toward a focus on 
future capabilities. While maintaining our enduring relationships and 
security commitments, our force structure in Europe is evolving to meet 
a broad range of 21st century challenges, including missile defense, 
cyber security, counterterrorism, and countering weapons of mass 
destruction. To that end, as announced previously, the plan is to 
enhance EUCOM's ability to address ballistic missile threats by forward 
stationing four Aegis-Ballistic Missile Defense (BMD) capable ships in 
Spain and establishing land-based SM-3 BMD sites in Romania and Poland, 
which adds to the capabilities already provided by the AN/TPY-2 radar 
in Turkey. Additionally, we will enhance the responsiveness of Special 
Operations Forces in the region (increasing our overall air and ground 
capabilities in Europe). We also recently established an aviation 
detachment in Poland, enhancing their fixed wing training 
opportunities.
    Question. Do you believe that additional reductions in U.S. forces 
stationed in Europe, including the Army and the Air Force, should be 
considered consistent with EUCOM's key strategic missions?
    Answer. We must ensure that our posture adapts and evolves in ways 
that respond to, and anticipate, changes in the international security 
environment. The persistence of conflict, the diffusion of power around 
the world, the proliferation of nuclear and other weapons technologies, 
and rising pressures on the freedom of the global commons pose new 
security challenges that require innovative adjustments to our defense 
posture. To this end, we will seek a new cooperative architecture, one 
that generates opportunities to work together with allies and partners 
on shared regional and global security opportunities and challenges. 
We'll continue to align our posture to achieve our national strategy 
goals and objectives.
    Question. If confirmed, would you agree to undertake a review of 
the U.S. force posture in Europe to determine whether additional 
reductions are appropriate?
    Answer. Yes. EUCOM is currently supporting an internal DOD European 
infrastructure consolidation analysis. I look forward to reviewing the 
recommendations of this effort and working with the Department and 
Congress to ensure our military presence in Europe continues to 
effectively and efficiently support our national strategy.
                   use of rotational forces in europe
    Question. The January 2012 Defense Strategic Guidance stresses the 
importance of a U.S. rotational presence for building partner capacity 
and promoting interoperability.
    What role do you foresee for U.S-based forces in maintaining a 
rotational presence in Europe and promoting interoperability with our 
NATO and other European partners?
    Answer. EUCOM leverages the Global Force Management system to meet 
force requirements in order to build partner capacity and promote 
interoperability with allies and partners that cannot be addressed by 
our assigned forces. This includes employing U.S.-based Navy and Marine 
Corps forces for NATO exercises and our annual Black Sea Rotational 
Force program of training and military-to-military activities with 
allies and partners in the Black Sea/Caucasus region. The 
reinvigoration of U.S. participation in the NATO Response Force and 
rotation of U.S.-based battalion task forces to Europe will create 
additional opportunities to build partner capacity and promote 
interoperability that complement the activities of U.S. Army Europe. 
These efforts, by our assigned and rotational forces, are critical to 
preserving the gains in interoperability and ally/partner nation 
expeditionary capability that have been forged over the past decade of 
operations in Iraq and Afghanistan.
      u.s. commitment under article v of the north atlantic treaty
    Question. A cornerstone of the NATO alliance is the principle of 
collective self-defense as codified in Article V of the North Atlantic 
Treaty.
    In your view, how important to U.S. strategic interests is the U.S. 
commitment to its obligations under Article V?
    Answer. The United States is unquestionably committed to its 
Article 5 obligations. The formal, demonstrated, and sustained 
commitment to Article 5 collective defense by the United States has 
provided the backbone for the most successful Alliance in history. For 
the past 64 years, this commitment has contributed to an unprecedented 
period of peace and prosperity in Europe and North America. But the 
strategic value of the U.S. commitment is not a win/lose proposition. 
Both sides of the Atlantic have benefited from America's unwavering 
commitment. While Europeans have enjoyed the benefit of a powerful 
security guarantee, the United States has gained a voice in European 
security affairs and an economically strong trading partner resulting 
in a Transatlantic Alliance that represents 50 percent of the world's 
Gross Domestic Product (GDP). Moreover, it is our allies' commitment to 
NATO which has enabled interoperable European and Canadian forces to 
deploy alongside the United States in Afghanistan, to stay the course 
in Kosovo, to take the lead in Libya (enabled by the United States), 
and to conduct maritime missions in the Mediterranean as well as 
counter-piracy in the Indian Ocean. Today, NATO remains the world's 
premier security organization and an essential component of the 
transatlantic security bridge. It provides a forum for political and 
military combined action, and is exhibiting an increasingly global 
perspective. It has become a hub to cooperate with like-minded partners 
such as Australia, South Korea, Singapore, New Zealand, and Japan. All 
of this is made possible because of how seriously the United States 
takes its Article 5 obligations. In my view, the U.S. commitment to 
Article 5 is a strategic imperative.
                                 russia
    Question. U.S. European Command has responsibility for the Russian 
Federation in its area of responsibility.
    How do you see the NATO-Russia relationship evolving in the future?
    Answer. Our goal for building NATO-Russia relations is to find ways 
we can collaborate to address areas where our interests intersect in 
the complex security environment of the 21st century. We continue to 
believe that NATO-Russian cooperation can enhance the security of the 
United States, our allies in Europe, and Russia. However, differences 
remain, and we look to the NATO-Russia Council as a forum to discuss 
both our differences as well as our shared interests. The NATO-Russia 
Council has achieved much through political dialogue over the last few 
years. There remains a robust military to military cooperation program 
between NATO and Russia. If confirmed, I look forward to working with 
my Russian counterparts and furthering these important relationships.
    Question. What do you believe are appropriate objectives for U.S.-
Russian security relations, and what do you believe are the areas of 
common interest between the United States and Russia in the security 
sphere?
    Answer. We continue to seek cooperation with Russia in zones of 
mutual interest and benefit, particularly in the military-to-military 
areas of combating terrorism, counter-piracy, peacekeeping in unstable 
regions, and maritime interoperability. Additionally, we look for ways 
to support interagency efforts in areas beyond direct Russian Defense 
Ministry oversight, particularly in counternarcotics, humanitarian 
assistance/disaster response, and support to capacity-building for 
Afghanistan security forces through 2014 and beyond, such as the 
Afghanistan Helicopter Maintenance Trust Fund.
          european phased adaptive approach to missile defense
    Question. In September 2009, President Obama announced that he had 
accepted the unanimous recommendation of the Secretary of Defense and 
the Joint Chiefs of Staff to implement the European Phased Adaptive 
Approach to missile defense, designed to provide capability against the 
existing and emerging missile threat from Iran. Phase 1 was 
successfully deployed by the end of 2011, including an Aegis Ballistic 
Missile Defense-capable ship on patrol in the Mediterranean, an early-
warning missile defense radar in Turkey, and a command and control 
center in Germany. Future phases will include Standard Missile-3 
interceptors based at sea and on land in Romania and Poland.
    Do you agree that the European Phased Adaptive Approach (EPAA) will 
provide the capability needed to protect U.S. forces in Europe and our 
NATO European allies against existing and emerging Iranian missile 
threats?
    Answer. Yes. EPAA Phases 1-3 are designed to address the increasing 
missile threat. The United States remains firmly committed to Phases 1-
3 which is the United States' contribution to NATO missile defense. In 
the words of Secretary Hagel: ``Let me emphasize the strong and 
continued commitment of the United States to NATO missile defense. That 
commitment remains ironclad.'' EUCOM has already deployed Phase 1 
capability including a radar to Turkey, which is now under NATO Command 
and Control, and Aegis Ballistic Missile Defense-capable ships to the 
Mediterranean.
    The United States' commitment to Phases 2 and 3 includes the 
development of missile defense sites in Romania (2015) as part of Phase 
2 and in Poland (2018) as part of Phase 3. Both deployments remain on 
schedule and on budget, and coordinated with both countries. 
Construction on the Romanian site is scheduled to begin this year in 
addition to equipment purchases for the Phase 3 site in Poland. The 
goal of Phase 4 of the EPAA was to defend the United States against an 
ICBM attack from the Middle East. Though we are no longer planning for 
Phase 4, we will achieve its intended effect sooner by additional GBIs 
deployed in Alaska, which will also enhance protection of the United 
States against the growing threat from North Korea.
    Question. Do you believe that it is important to develop the 
Standard Missile-3, Block IIB interceptor in order to have the 
capability to defend against potential future long-range Iranian 
missiles that could reach all of Europe as well as the United States?
    Answer. We support the Secretary of Defense's decision and we 
believe the solution that has been described is the most 
technologically sound decision at this time.
                missile defense cooperation with russia
    Question. The United States and NATO are seeking options to 
cooperate with Russia on missile defense against common missile threats 
from nations such as Iran. President Obama has announced that such 
cooperation would not limit U.S. or NATO missile defense capabilities.
    Do you agree that such cooperation could enhance the security of 
the United States, NATO, and Russia against common missile threats from 
nations such as Iran?
    Answer. Yes. Constructive cooperation with Russia in fields of 
mutual interest, such as missile defense, is a EUCOM goal. If 
confirmed, I would look to continue supporting U.S. interagency efforts 
to increase cooperation and transparency with Russia. Cooperation with 
Russia demonstrates our transparency and develops trust between 
nations. In turn this trust underpins and enhances our security.
    Question. Do you believe that such cooperation could send a 
powerful signal to Iran and help in our efforts to dissuade Iran from 
pursuing nuclear weapons and long-range ballistic missiles?
    Answer. Yes. Strategic cooperation between Russia and NATO has many 
benefits that strengthen our security. We have seen how coordination 
with Russia on topics of mutual interest can send powerful messages. 
However, our work at EUCOM is closely aligned with the progress of the 
NATO-Russia Council in defining and aligning our interests in missile 
defense.
    Question. In response to a committee question to General Martin 
Dempsey, then-nominee to be Chairman of the Joint Chiefs of Staff, 
General Dempsey stated that missile defense cooperation with Russia 
``could result in tangible benefits to the United States, Europe, and 
Russia in the form of a more robust common defense against missile 
threats, which could strengthen strategic stability and transparency. 
U.S. cooperation with Russia along the lines of shared early warning of 
missile launches, technical exchanges, operational cooperation and 
planning, and joint exercises would be mutually beneficial.''
    Do you agree with General Dempsey's assessment?
    Answer. Yes. Both the U.S. and NATO Russia Council are working on 
constructive engagements with Russia on Missile Defense, to include 
joint technical studies and exercises when Russia is ready.
                   nato missile defense contributions
    Question. The United States is deploying the EPAA as its 
contribution to NATO missile defense capability. As part of its 
decision to develop such a capability, NATO has agreed to develop and 
pay for a missile defense command and control network, the active 
Layered Theater Ballistic Missile Defense system. Various NATO nations, 
including Turkey, Poland, Romania, Germany, and Spain, have agreed to 
host elements of NATO missile defense, and they and others are making 
additional national contributions to NATO missile defense.
    Do you agree that this current NATO approach to missile defense 
contributions is reasonable and appropriate?
    Answer. Yes, I do. If confirmed, I am looking forward to continuing 
to emphasize the efforts already underway, as well as increasing allied 
coordination and cooperation during my time as EUCOM Commander in order 
to facilitate and enable additional allied contributions to the 
Ballistic Missile Defense (BMD) mission.
    EUCOM is observing that the NATO response to the ballistic missile 
threat is increasing, and we are actively working with our allies to 
explore additional capabilities that complement and are interoperable 
with the United States' EPAA contribution to NATO. For instance, EUCOM 
just hosted (in September 2012) an Allied BMD Upgrade Conference in 
Berlin, Germany, with eight allies (the Netherlands, Germany, Denmark, 
Norway, Spain, France, United Kingdom, Italy) that already possess 
advanced land-based and maritime air defense assets that could be 
upgraded for BMD capability. I look forward to continuing and expanding 
such engagement activities with our allies.
    Additionally, EUCOM has aligned our exercise program to provide 
increased opportunities to work with our NATO allies on the non-
technical aspects of interoperability, including the ability to execute 
missile defense.
    I think it is also important to keep in mind that the Chicago 
Summit called for ``voluntary national contributions to NATO missile 
defense''. Several of the allies are already stepping up in this 
regard, to include: our basing allies (Spain, Romania, Poland, Turkey, 
Germany); allies that possess lower tier BMD capabilities, such as the 
Netherlands and Germany (with their Patriot PAC-3 systems); as well as 
allies that are considering or already upgrading existing maritime and 
land-based air defense systems to provide upper tier surveillance and 
interceptor capacity to the Alliance. For example, the Netherlands 
recently announced the signing of a contract to upgrade all four of 
their Air Defense Command Frigates for BMD surveillance capability that 
could be used to cue U.S. Aegis BMD ships or other allied BMD assets, 
and provide air defense escort for U.S. BMD ships. Poland and Turkey 
are considering the purchase of lower tier BMD systems, such as the 
Patriot PAC-3. In short, many allies are already providing support to 
various aspects of the BMD mission in Europe, and could potentially 
provide additional contributions across the full spectrum of the 
missile defense mission, including: basing; passive defense; active 
defense; theater missile warning; command and control; attack 
operations; and consequence management. All of these are important 
contributions to NATO's ballistic missile defense mission.
                          nato-russia council
    Question. The NATO-Russia Council (NRC) has served as an important 
venue for discussions and cooperation between NATO and Russia, 
including missile defense cooperation such as the Theater Missile 
Defense exercise program. Recent NATO communiques have expressed 
support for expanded cooperation through the NATO-Russia Council, 
including on missile defense.
    Do you believe the NATO-Russia Council has potential as a forum for 
NATO-Russian cooperation, including cooperation on missile defense?
    Answer. Yes, I do.
    The NATO-Russia Council Work Program provides for multiple agreed 
areas of cooperation with Russia, including not only missile defense, 
but also the Afghanistan Helicopter Maintenance Trust Fund, counter-
narcotics training for South and Central Asia, combating terrorism, 
crisis management, logistics, maritime search and rescue, counter-
piracy, and others. Although missile defense remains a point of 
contention between NATO and Russia, discussions on possible cooperation 
continue. NATO has held active discussions with Russia through the 
NATO-Russia Council Missile Defense Working group. We continue to 
believe that cooperation with Russia on missile defense can enhance the 
security of both NATO and Russia.
    Question. Do you support continuation of the Theater Missile 
Defense exercise program within the NATO-Russia Council?
    Answer. Yes, I do.
    Both the U.S. and NATO-Russia Council are working on constructive 
engagements with Russia on Theater Missile Defense, to include 
cooperative technical studies and exercises when Russia is ready. The 
effectiveness of these efforts will ultimately depend on Russia's 
willingness to engage.
         eucom role in coordinating missile defense with israel
    Question. U.S. European Command has Israel in its area of 
responsibility (AOR) and, among other missions, has the mission of 
coordinating and integrating U.S. missile defense capabilities and 
operations with those of Israel. To this end, EUCOM has sponsored a 
number of previous missile defense exercises with Israel. In addition, 
the United States has deployed a EUCOM missile defense radar (known as 
an AN/TPY-2 radar) to enhance defense against missiles from Iran.
    Do you agree that this EUCOM mission of coordination and 
integration of U.S. and Israeli missile defense capabilities and 
operations is a critical component of our security posture in the EUCOM 
AOR?
    Answer. Yes, I do. Cooperation between the United States and Israel 
is important to the security of the Middle East, and reflects a common 
understanding of the global security environment. Periodic missile 
defense exercises such as Exercise Austere Challenge 12 provided an 
excellent opportunity to train our military forces to respond to a 
regional crisis. This training is essential to building and maintaining 
defense interoperability and ensures Israel's qualitative military 
edge.
    Question. If confirmed, would you continue to make this mission a 
high priority as Commander of EUCOM?
    Answer. Yes. EUCOM has a robust program to support co-development, 
integration, and exercises focused on the missile defense of Israel. If 
confirmed, the defense of Israel will continue to remain a EUCOM high-
priority mission under my command.
                         nato-led kosovo force
    Question. Approximately 5,600 troops from 30 contributing nations, 
including nearly 900 U.S. troops, are deployed as part of the NATO-led 
Kosovo Force (KFOR). KFOR's mission is to assist in maintaining a safe 
and secure environment in Kosovo consistent with United Nations 
Security Council Resolution 1244 and to support the development of the 
Kosovo Security Force (KSF). NATO has sought to gradually draw down the 
KFOR presence as the security situation has improved.
    What do you see as the major challenges in Kosovo, including in 
connection with the establishment of the Kosovo Security Force?
    Answer. The principle challenge facing Kosovo is solidifying the 
gains of independence and continuing to build the institutions of a 
modern democratic state. Much progress has been made, but more work 
remains. A key to allow Kosovo the space to undertake key reforms is 
the quest for and implementation of an acceptable political agreement 
with Belgrade that will resolve the longstanding impasse over northern 
Kosovo. Setting the stage for successful negotiations and peaceful 
resolution remains the top priority. Resolution of this impasse is 
critical for Kosovo's and the region's long-term stability.
    Subsequently, the Kosovo Security Force (KSF) has matured, under 
its limited mandate, into a professional, multi-ethnic, civil response 
focused, security organization. However, the KSF does not yet possess 
the capabilities to replace KFOR as Kosovo's enduring security and 
defense organization. Our goal is to start building these additional 
capabilities with the KSF early next year after Kosovo legislative 
restrictions are lifted this summer. It is essential that NATO is an 
active partner in shaping the future KSF with U.S. support, so that the 
future KSF contributes to, not detracts from, regional security and is 
not viewed as a threat to its neighbors. Some allies who do not 
recognize Kosovo's independence are slow to support increasing 
competencies of the KSF which could pose additional challenges in the 
future.
    Question. If confirmed, what additional steps, if any, would you 
recommend to enhance the ability of KFOR to carry out and complete its 
mission in Kosovo?
    Answer. KFOR must act within its mandate and mission and we must 
not allow KFOR's role to include the realm of law enforcement, yet this 
is the predominate capability required to maintain peace in Kosovo. 
KFOR's most effective role is to deter violence through a strong 
presence, and to respond as a third provider to unrest that exceeds 
Kosovo Police and European Union Rule of Law Mission in Kosovo (EULEX) 
capabilities. Within this context, our best approach includes: (1) 
strong support for continued dialogue; (2) urging Europe to maintain or 
increase their contributions to EULEX and encourage EULEX to robustly 
fulfill its mandate; (3) urging allies to fully meet force commitments 
to KFOR to present a strong and unified KFOR presence; and (4) maintain 
the U.S. plan to provide a timely military response after NATO response 
forces become committed in the event of crisis.
                            nato enlargement
    Question. What are your views on whether NATO would benefit from 
further rounds of enlargement?
    Answer. The policy on enlargement is set out in Article 10 of the 
North Atlantic Treaty. NATO has an ``Open Door'' policy of further 
enlargement that was agreed to by the Alliance Heads of States and 
Government at the Lisbon Summit in 2010 and reaffirmed at the Chicago 
Summit this year. The decision of which Nations are offered, and when 
they join, is political and will be ultimately decided by the 28 member 
states of NATO.
    Question. What criteria should the United States apply in 
evaluating candidates for future NATO enlargement?
    Answer. The criteria are well established in the Membership Action 
Plan mechanism, which I support. It supports stable, democratic, and 
reform-driven Nations who wish to contribute to security.
    Question. In your view, is there a limit on the extent to which 
NATO can be enlarged and still be an effective military organization 
capable of making decisions and acting in a timely fashion?
    Answer. NATO has gone through several rounds of enlargement, and 
has continued to prove itself effective.
                                georgia
    Question. In your view, how should the United States and NATO 
proceed on the issue of NATO membership for Georgia?
    Answer. This is a political issue and outside the role and 
responsibilities of SACEUR. As I stated previously, Article 10 of the 
Washington Treaty, and the agreed Open Door policy for further NATO 
enlargement, allow for stable, democratic and reform-driven Nations to 
be considered for NATO membership.
    That said, I believe the U.S. and NATO should continue to reaffirm 
support for Georgia's territorial integrity, sovereignty, and the 
Bucharest decision regarding Georgia's eventual NATO membership. 
Georgia's democratic reform progress, exemplified by the successful 
October parliamentary elections and transition of leadership between 
democratic parties, their unwavering and substantive support to ISAF 
operations, and commitment to the Geneva talks and a peaceful 
resolution of the South Ossetia and Abkhazia territorial disputes are 
all very encouraging signs that we commend. Likewise, Georgia continues 
to demonstrate itself as a strong partner of NATO through its 
contributions to our ISAF mission, where its two infantry battalions 
serve with no operational caveats, shoulder to shoulder with U.S. 
marines, in one of the most dangerous regions of Afghanistan. We will 
continue to encourage the new Georgian Government in its reform 
efforts. EUCOM is committed to assisting the new government through 
close partnership and continued engagement just as we have in the past.
    Question. Section 1242 of the National Defense Authorization Act 
for Fiscal Year 2012 requires the Secretary of Defense, with the 
concurrence of the Secretary of State, to develop a plan for normalized 
U.S. defense cooperation with Georgia, including the sale of defensive 
arms.
    What is your assessment of current U.S. defense cooperation with 
Georgia?
    Answer. The United States currently has a vigorous defense 
cooperation program with Georgia. We conduct hundreds of events 
annually in a wide-range of areas to include: cyber defense; border 
security; professional military education development; and 
counterinsurgency operations training, to name a few. Georgia has one 
of the most robust Foreign Military Financing programs in EUCOM, with 
funding at approximately $14 million.
    In January 2012, President Obama offered six enhanced engagement 
areas to President Saakashvili, which will help the Georgians improve 
their national defense. Those areas are:

    1.  Operational air surveillance/air defense training and 
education;
    2.  Coastal surveillance training and education;
    3.  Tactical level train-the-trainer instruction for Junior 
Officers and Non-Commissioned Officers;
    4.  Brigade command and staff training and education;
    5.  Defensive combat engineer training and education; and
    6.  Utility helicopter aviation training support.

    EUCOM has already conducted or has planned initial engagements with 
Georgia in all these areas. We are aggressively using our International 
Military Education and Training funding to fulfill many of the 
educational requirements in these areas. These new areas of 
cooperation, which are in addition to continuing cooperation in defense 
institution building efforts, focus on Georgia's self-defense 
capabilities and NATO interoperability.
    Question. What opportunities, if any, do you see for enhanced U.S. 
defense cooperation with Georgia, including defensive arms?
    Answer. With regard to defensive equipment, the Obama 
administration has agreed to consider favorably the sale of air 
surveillance radars, coastal surveillance acoustic systems, and small 
arms ammunition.
                          nato-european union
    Question. How would you characterize the NATO-EU relationship 
today?
    Answer. It is a strong partnership. This is reflected in the 
Strategic Concept from the Lisbon Summit, which determined to 
strengthen the strategic partnership between NATO and the European 
Union (EU).
    That said, the characterization of the NATO-EU relationship is 
largely a political issue outside the purview of the role of the 
SACEUR. However, from a military perspective, the two organizations can 
be complementary partners in a comprehensive approach addressing 
complex crisis, and I believe the relationship is improving. NATO and 
the EU are now coordinating efforts to improve capabilities and the EU 
is using NATO Defense Planning baseline information to help establish 
priorities.
    Question. In your view, what should be NATO's position with regard 
to European efforts to strengthen the European Security and Defense 
Policy and build military capacity within the European Union?
    Answer. NATO's position regarding the strengthening of European 
Security and Defense Policy will be decided at the political level by 
its 28 member nations. However, from a purely military perspective 
there is no question that within Europe the military capabilities are 
derived from a single pool of forces which are made available to either 
NATO or the EU based on a political decision. Of the 27 EU member 
nations, 21 are in NATO. The building of the capacity and capability of 
forces within the EU is also the building of military capacity and 
capability for NATO. In a resource constrained environment it makes 
sense to leverage the capabilities of all NATO and EU members to ensure 
the best return on a limited defense investment. If confirmed, this is 
an area in which I would seek to develop complementary activities in 
coordination with my counterpart, General Jean-Paul Palomeros of Allied 
Command Transformation, in Norfolk, who is leading the military effort 
to develop capabilities in NATO.
                                 france
    Question. What is your assessment of the impact of France rejoining 
the integrated military structure?
    Answer. I strongly welcome the significant contributions across the 
Alliance made by France. France is one of the most militarily capable 
members of NATO, and is a critical ally of the United States. We 
believe France's decision to reintegrate into the NATO integrated 
military structure has been mutually beneficial. The alliance is 
stronger militarily, the transatlantic link is more solid, and our own 
bilateral relationship with France is strengthened along with it. We 
appreciate France's leadership in the alliance--in terms of 
capabilities, defense investment, and contributions to operations.
                      unified command plan changes
    Question. It has been reported that Admiral McRaven, Commander of 
U.S. Special Operations Command (SOCOM), is seeking changes to the 
Unified Command Plan (UCP) that he believes would allow SOCOM to better 
support the requirements of the Theater Special Operations Commands 
(TSOCs). Reportedly, such changes would give the Commander of SOCOM 
combatant command authority over the TSOCs--including responsibilities 
for resourcing--and provide for more rapid deployment of Special 
Operations Forces to and between geographic combatant commands without 
the requirement for approval by the Secretary of Defense in every case. 
Operational control of deployed Special Operations Forces would 
reportedly remain with the respective geographic combatant commander.
    Some have expressed concern that such changes could raise problems 
related to civilian control of the military, infringe upon the 
traditional authorities of the geographic combatant commanders, and 
make it more difficult for Ambassadors and geographic combatant 
commanders to know what military personnel are coming into their areas 
of responsibility and what they are doing while they are there.
    Please provide your assessment of whether such UCP changes are 
appropriate.
    Answer. The UCP changes to SOCOM are designed to provide a greater 
measure of flexibility in responding to the fluid and global nature of 
counterterrorism. Along with the approved changes in our assigned 
forces document called `Forces for', they provide a level of global 
perspective to the counter-terror fight that is currently lacking 
within DOD. By altering the command relationship slightly, SOCOM gains 
abilities that have been in use in Operation Enduring Freedom since 
2005 (under SOCOM 121 authorities). These authorities have allowed for 
rapid deployment of U.S.-based Special Operations Forces to and between 
the U.S. Central Command (CENTCOM) and U.S. Africa Command (AFRICOM) 
areas of responsibility. They are appropriate, as long as caveats 
relating to minimum force levels discussed between EUCOM and SOCOM are 
implemented.
    Question. Please address any concerns that such UCP changes may 
raise, including whether such changes would conflict with civilian 
control of the military, infringe upon authorities provided to the 
geographic combatant commanders, or raise concerns with the State 
Department?
    Answer. The UCP and ``Forces for'' changes do not conflict with 
civilian control of the military as, fundamentally, the changes require 
and defer to civilian authority. This is a bedrock principle of the 
U.S. military's constitutional obligation to fully abide by civilian 
authority. Additionally, these changes, with the agreed-upon caveat 
suggested by EUCOM, do not infringe upon the authority of the 
geographic combatant commanders (GCC) in any way. Forces assigned to a 
GCC remain under the operational control (OPCON) of that GCC, and 
therefore require GCC concurrence prior to being assigned outside the 
theater. This arrangement fundamentally supports geographic combatant 
commander authority. The same would be true of forces entering the 
theater. This will allay State Department concerns about the UCP 
change, as it maintains the current notification and permissions 
relationship between the GCC and ambassadors, ensuring that foreign 
policy concerns continue to be addressed in the same manner as before. 
The caveat mentioned above is that EUCOM requested an identified 
baseline of Special Operations Forces assigned to the GCC. This would 
allow EUCOM to make long-term plans for the engagement of partners and 
allies in theater with confidence that the forces assigned against 
those engagements are not withdrawn from the theater without an 
informed discussion of the costs and disruptions that might be 
incurred.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. I believe working in a collaborative manner with 
representatives from other Federal partners is essential to achieving 
success for any combatant commander. The value provided by 
representatives from other agencies cannot and should not be duplicated 
within the Defense Department. That is why every geographic combatant 
command now has some organizational entity designed to facilitate 
collaborative interagency efforts. At EUCOM Headquarters, that 
organization is the J9-Interagency Partnering Directorate established 
through the vision and wisdom of ADM Stavridis in November 2009. 
EUCOM's J9 model has been emulated at other geographic combatant 
commands, including U.S. Pacific Command; U.S. Southern Command, under 
the leadership of ADM Stavridis; U.S. Africa Command; and, most 
recently, U.S. Northern Command. At EUCOM, the J9 Interagency 
Partnering Directorate hosts 12 Federal agency partners from U.S. 
Government Departments and Agencies, including: the Departments of 
State, Justice, Treasury, Homeland Security, Energy; and the U.S. 
Agency for International Development (USAID). EUCOM utilizes a broad 
definition of ``interagency partnering'' to include collaboration with 
non-governmental, academic and private sector partners.
    In another compelling whole-of-government initiative, EUCOM 
installed a career foreign service officer and senior State Department 
leader to serve as the ``Civilian Deputy to the Commander.'' The 
creation of that position, the Command's most senior ``interagency 
representative'' was also an initiative developed by Jim Stavridis. The 
position is presently filled by Ambassador Larry Butler.
    In my mind, the key to successful interagency partnering is to 
properly identify and engage partners early in the planning process in 
order to capture the expertise these organizations can bring to the 
effort at hand. Once engaged, we must maintain open and continuous 
communications with each other throughout operations to fully realize 
the benefit of everyone's unique experiences, expertise, and 
contributions.
    Question. How do you believe these efforts can be improved?
    Answer. Our environment is characterized by decreasing resources 
and an atmosphere of multiple distributed threats. Given this setting, 
it makes both fiscal and strategic sense to continue advocating for an 
interagency, whole-of-government, collaborative approach as a 
fundamental modus operandi. I believe this is the most effective and 
efficient method for us to safeguard and advance U.S. and Theater 
priorities.
    Question. If confirmed, what role would you seek to play in 
encouraging greater interagency collaboration between U.S. Special 
Operations Forces, general purpose forces, and other U.S. Government 
departments and agencies?
    Answer. If confirmed, I would seek to continue the innovative 
interagency efforts underway at EUCOM Headquarters through initiatives 
like the Civilian Deputy Commander, the J9 Interagency Partnering 
Directorate, and the Joint Interagency Counter-Trafficking Center. 
These offices help ensure the combatant command continues to engage in 
early and continuous interagency coordination, planning, and 
collaboration. They foster a mindset that encourages linking U.S. 
Government agency representatives to relevant DOD headquarters and 
component staffs. These efforts have ensured the expertise, 
capabilities, and priorities of twelve hosted partner agencies are 
coordinated with critical EUCOM and component planning and execution 
efforts. If confirmed, I would continue to support this important 21st 
century way of thinking; strengthening existing relationships among 
Federal and non-governmental partners and the command. I would also 
look for opportunities to expand their participation across the Command 
to capitalize on the capabilities, authorities, and reach-back 
abilities present in their parent organizations.
               special operations personnel in embassies
    Question. U.S. Special Operations Command deploys personnel to work 
with country teams in a number of priority countries where the United 
States is not engaged in direct action operations but rather trying to 
stop the spread of violent extremism. Their mission is to support the 
priorities of the ambassador and the geographic combatant commander's 
theater campaign plan against terrorist networks. At times, ambassadors 
have complained that they have not been adequately informed of 
activities by Special Operations Forces in their country.
    If confirmed, what do you intend to do to make sure the goals of 
special operations personnel deployed to these countries are aligned 
closely with those of the ambassadors they are working with?
    Answer. If confirmed, I will promote an interagency approach as we 
assess the deployment of military forces within the EUCOM AOR. U.S. 
Special Operations Command (SOCOM) must have flexibility to respond to 
the fluid and global nature of counterterrorism. However, the 
ambassadors must be notified of these deployments to ensure foreign 
policy concerns are addressed adequately.
    Question. What is your assessment of the value of these special 
operations personnel to their respective geographic combatant commands 
and the country teams they are supporting?
    Answer. Special operations forces are an invaluable resource to the 
geographic combatant commander. From my experience in Afghanistan, 
these forces provide a unique capability that is indispensable to 
global counterterrorism efforts.
                  marine security guards in embassies
    Question. Due to the attack on the U.S. consulate in Benghazi, 
Libya, which resulted in the death of of a U.S. Ambassador and three 
other Americans, many are conveying concern about the safety of U.S. 
diplomatic personnel around the world.
    Do you share this concern?
    Answer. I do share this committee's concern for the safety of our 
diplomatic colleagues stationed around the world.
    Question. The Marine Security Guard Program was established in 
1946, and its mission, to provide internal security at designated 
embassies of classified information and equipment, remains unchanged to 
this day.
    In light of increasing threats to U.S. diplomatic personnel by 
terrorists throughout the world, do you believe it is time to re-
examine the Program's mission and protocols?
    Answer. The Marine Corps Embassy Security Group does not fall under 
the authority of the combatant commands. EUCOM does not have the 
expertise to comment on the Marine Security Guard Program's mission and 
protocols.
    Question. If so, should it be broadened to provide additional 
protection to U.S. diplomatic personnel?
    Answer. Although the primary mission of the Marine Security Guard 
Program is to provide internal security services at designated U.S. 
diplomatic and consular facilities to prevent the compromise of 
classified information and equipment vital to the national security of 
the United States, a secondary mission is to provide protection for 
U.S. citizens and U.S. Government property located within designated 
U.S. diplomatic and consular premises during exigent circumstances 
(urgent temporary circumstances which require immediate aid or action).
    Question. In your opinion, what additional steps, if any, should be 
taken to reduce the risk of attacks on U.S. embassies and consulates 
and diplomatic personnel by terrorist organizations throughout the 
world and in the EUCOM area of responsibility, in particular?
    Answer. The risk of attack to our diplomatic facilities can never 
be completely eliminated. Working closely with my Department of State 
colleagues, I will seek to reduce the risk by leveraging the expertise 
of our interagency partners in order to strengthen our comprehensive 
counter-terrorism strategy. In an era of decreasing resources and 
increased threats, we must utilize a whole-of-government approach to 
reduce the risk to our diplomatic facilities and personnel in the EUCOM 
area of responsibility and beyond.
                  nato special operations headquarters
    Question. The NATO Special Operations Forces Headquarters (NSHQ) 
was created in 2007 to enhance the capabilities of and promote 
interoperability between the Special Operations Forces (SOF) of NATO 
member nations. Admiral McRaven, Commander of U.S. Special Operations 
Command (SOCOM), has credited the NSHQ with bringing about ``a 
generational leap forward in NATO Allied and Partner SOF 
capabilities.''
    What do you see as the value of NSHQ to ISAF operations in 
Afghanistan?
    Answer. Since its establishment in 2007, the NATO Special 
Operations Force Head Quarters (NSHQ) has quietly made an immense 
behind the scenes impact on operations in Afghanistan, and more 
broadly, in the development of a wider Allied and Partner SOF. In an 
ISAF context, one of the over arching achievements has been the 
establishment of a coherent framework for Allied and Partner SOF 
operations under the ISAF mandate that was non-existent prior to the 
inception of the NSHQ. This crucial framework has not only brought a 
greater capability to ISAF, but has also served to underpin a more 
effective and relevant and inter-operable SOF capability through the 
creation of doctrine, training, and common standards. Moreover, the 
NSHQ has also been instrumental in supporting increased SOF 
contributions by Allies and Partners to ISAF operations. Allied and 
Partner SOF contributions on the ground have increased by some 500 
percent since 2007.
    The NSHQ has also closed a number of operational gaps identified in 
Afghanistan by developing and conducting a comprehensive purpose built 
training and education program at the NATO SOF School. This effort has 
included combined joint SOF staff operations and procedures, technical 
exploitation, threat network analysis, imagery analysis, and 
intelligence, surveillance, and reconnaissance (ISR) full motion video 
employment. Additionally, the NSHQ has enabled NATO Allied and Partner 
SOF through the reciprocal sharing of classified information leveraging 
both the NATO SOF communications network and the NSHQ's the Special 
Operations Forces Fusion Cell (SOFFC) in Kabul that serves more than 
2,200 Allied and Partner SOF personnel operating under ISAF. These 
enhancements include enabling Allied and Partner SOF task forces to 
receive ISR video feeds in support of partnered advise and assist 
operations with their Afghan counterparts in the Provincial Response 
Companies (PRC).
    Question. What role do you believe the NSHQ should play in future 
contingencies involving NATO SOF?
    Answer. Operations in Afghanistan have led to significant gains in 
SOF capabilities and capacities across Allied and Partner SOF. Let me 
also point out that the benefits realized from the enhancement of SOF 
within the Alliance by the NSHQ also impact bi-lateral and multilateral 
SOF operations outside of a NATO context. In response to operational 
requirements, the NSHQ has successfully established a NATO Allied and 
Partner SOF community where none existed previously. This human SOF 
network transcends the Alliance and habitually includes non-NATO SOF 
partners from Ireland, Australia, New Zealand, Sweden, Finland, 
Austria, and Switzerland. Looking ahead to future challenges, we need 
to transfer the synergy, effectiveness, and efficiency acquired as a 
result of operational drivers in Afghanistan, to counter-piracy, and 
from NSHQ activities, and orient them towards emerging Alliance 
security challenges. In many instances SOF will play an instrumental 
role in mitigating threats. The NSHQ role will be crucial in developing 
a more responsive and agile series of SOF capabilities including scaled 
force packages with organic plug and play capabilities. NSHQ 
coordination and focus will ensure greater utility to the Alliance with 
an assured full spectrum SOF capability.
    Question. How do you believe the NSHQ can most effectively support 
NATO SOF capabilities and interoperability?
    Answer. The NSHQ role, with its specific and focused advocacy of 
SOF initiatives, is a crucial driver of Alliance SOF capability and 
interoperability. Moreover, as highlighted at the February NATO Defense 
Ministers meeting, NATO SOF interoperability will be key to supporting 
NATO's Connected Forces initiative. It is important to recognize that 
there is no more efficient or effective means to develop SOF 
capabilities, capacities, and interoperability than through an enduring 
Alliance with a dedicated SOF advocate hence the reason the NATO SOF 
Transformation Initiative was launched following the North Atlantic 
Council endorsement at the Riga Summit in 2006. As mentioned, the NSHQ 
has made unprecedented strides in the development of SOF capabilities 
and capacities across a range of disciplines and functional areas. 
Significant improvements include the areas of command, control, 
communications, information sharing, policy making, doctrine and 
standard operating procedures. A robust SOF community of interest in 
SOF medicine has enabled the development of this critical capability 
across the Alliance. A well-documented Alliance and National SOF 
capability gap is in SOF air which was painfully evident in Afghanistan 
and in many cases affected our operational tempo. The NSHQ is working 
to gain similar momentum to promote enhanced capability, capacity and 
interoperability in the air domain. Success will be the integration of 
these capabilities that will eventually allow for a more responsive 
employment of SOF in a NATO context and among national SOF.
    Question. What do you believe are the appropriate roles for EUCOM 
and SOCOM in providing guidance and resources to the NSHQ?
    Answer. The NATO Special Operations Headquarters is under the daily 
operational command of the Supreme Allied Commander Europe, so in terms 
of guidance, if confirmed, I would oversee all operational issues 
related to the NSHQ. As Commander, EUCOM, I am delegated authority from 
the Joint Staff to execute U.S. Lead Agent and framework nation 
representative responsibilities, including managing NSHQ manpower and 
strength with support from the Army to manage fiscal resourcing. The 
Commander of SOCOM is designated as the Lead Component charged with 
Executive Agent responsibilities within the U.S. Department of Defense. 
In that capacity, Admiral McRaven exercises SOF custodianship of U.S. 
framework nation related activities.
                       mass atrocities prevention
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10.
    Among interagency partners, what is EUCOM's role in addressing 
atrocity threats, and what tools does EUCOM have for preventing or 
responding to atrocities in its AOR?
    Answer. EUCOM has been one of the DOD leaders in the development of 
an analytical framework to shape the military's role within the 
interagency community to focus on the unique aspects of preventing and 
responding to mass atrocities. EUCOM has developed detailed operational 
level tools to prevent and respond to atrocity threats along three 
broad lines of effort. These lines of effort include operational 
integration to transform evolving concepts into practicable/executable 
tactics, techniques, and procedures; doctrine development to 
institutionalize already accepted practices; and policy development/
refinement to foster interagency integration. A year ago, EUCOM co-
hosted a conference with AFRICOM to catalyze a broad discussion on mass 
atrocity prevention and response operations as well as address the 
requirements of Presidential Study Directive 10. Attendees included 
senior representatives from the National Security Staff, Department of 
State, Office of the Secretary of Defense, Joint Staff, and Dr. Sarah 
Sewall, Director of the Carr Center for Human Rights Policy at Harvard 
University.
    Question. Has EUCOM developed planning processes toward this effort 
so that it will be able to respond quickly in emergency situations?
    Answer. Yes. EUCOM has a level-two contingency plan for conducting 
peace operations in the EUCOM area of responsibility with the focus to 
contain conflict, redress the peace, and intervene to either prevent or 
respond to mass atrocities. The plan provides the staff with tools to 
facilitate a rapid response to include: a mass atrocity specific 
commander's critical information requirement; a joint operations center 
checklist to alert key leaders and initiate crisis action planning; a 
playbook that delineates critical events in the interagency response 
process; and a detailed mass atrocity response operation annex that 
will enable the command to collaboratively plan and execute a mass 
atrocity response operation.
                         counter threat finance
    Question. A number of officials in DOD and the Intelligence 
Community have called for investing additional resources in identifying 
and tracking the flow of money associated with terrorist networks and 
illicit trafficking.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. I completely agree. Of course, Treasury has lead and a 
great deal of expertise. The U.S. Government, and in this case the 
Department of Defense, must invest the required resources to identify 
and track the revenue flow derived from illicit activities. These 
funds, increasing by trillions of dollars, are key enablers in 
challenging security, creating instability, and undermining good 
governance on a worldwide scale. Through close interagency partnership 
with U.S. law enforcement agencies, DOD support to counter threat 
finance serves a critical role in disrupting narco-trafficking and 
transnational organized crime.
    Question. What do you believe is the appropriate role, if any, of 
EUCOM in supporting counter threat finance activities?
    Answer. Again, acknowledging that Treasury has lead, I believe that 
EUCOM, and all of the regional combatant commands, have a critical role 
in supporting counter threat finance (CTF) activities. Illicit 
trafficking organizations operate on a global scale. As a result, 
attacking these networks requires a comprehensive, synchronized, 
interagency, and international effort. Currently, EUCOM has an organic 
CTF team that works collaboratively with U.S. Government interagency 
and international partners in support of the National Transnational 
Organized Crime Strategy (TOC) and U.S. national security objectives.
       national strategy to combat transnational organized crime
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing. In July 2011, the President 
released the Strategy to Combat Transnational Organized Crime: 
Addressing Converging Threats to National Security. One of the priority 
action areas designated in the strategy is ``enhancing Department of 
Defense support to U.S. law enforcement''.
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The President's strategy to combat transnational organized 
crime (TOC) is organized around a single, unifying principle--to build, 
balance, and integrate the tools of American power to combat 
transnational organized crime and related threats to our national 
security, and to urge our partners to do the same. The National TOC 
strategy will achieve this end state by pursuing five key policy 
objectives:

    1.  Protect Americans and our partners from the harm, violence, and 
exploitation of transnational criminal networks.
    2.  Help partner countries strengthen governance and transparency, 
break the corruptive power of transnational criminal networks, and 
sever state-crime alliances.
    3.  Break the economic power of transnational criminal networks and 
protect strategic markets and the U.S. financial system from TOC 
penetration and abuse.
    4.  Defeat transnational criminal networks that pose the greatest 
threat to national security by targeting their infrastructures, 
depriving them of their enabling means, and preventing the criminal 
facilitation of terrorist activities.
    5.  Build international consensus, multilateral cooperation, and 
public-private partnerships to defeat transnational organized crime.

    Question. What is your assessment of the threat to the United 
States posed by transnational organized crime operating in the EUCOM 
AOR?
    Answer. Transnational organized crime networks use sophisticated 
business models and operations to perpetuate their illicit activities. 
They are highly adaptable, bold in their techniques, and ruthless in 
their execution. These networks are expanding and diversifying their 
activities at an alarming rate. The result is a convergence of well-
funded transnational organized crime networks that can destabilize 
entire economies, undermine good governance, and create national 
security threats to our Homeland and our allies. TOC networks with 
links to narcotics and arms smuggling, trafficking in persons, and a 
variety of other revenue generating commodities operate throughout the 
EUCOM AOR. These entities, with their exceptional destabilizing 
influence, threaten our Theater and national security interests, the 
security and stability of our allies and partners, and U.S. interests 
both at home and abroad.
    Question. What role does EUCOM play in combating transnational 
organized crime and in training and equipping partner security forces 
that have been tasked with combating it?
    Answer. In Europe, EUCOM's new Joint Interagency Counter 
Trafficking Center (JICTC), is focused on facilitating and implementing 
the National TOC Strategy in conjunction with U.S. interagency 
organizations and international partners. JICTC's mission is to support 
U.S. Interagency and Country Team efforts, and collaborate with similar 
international organizations, to counter transnational illicit 
trafficking and other associated threats. JICTC also assists partner 
nations to build self-sufficient counter-trafficking skills, 
competencies, and capacity to defend the Homeland forward from the 
rising threats posed by global transnational illicit trafficking. It is 
important to emphasize that EUCOM does not seek to become the lead U.S. 
Government agency for combating organized crime. Rather, EUCOM and its 
JICTC provide support to U.S. agencies to help synchronize their 
counter-trafficking efforts in a collaborative, whole-of-government 
approach. JICTC's focus areas include: narcotics trafficking; 
terrorism; weapons trafficking (illicit weapons, as well as WMD); human 
trafficking; and threat financing.
                    dod counter-narcotics activities
    Question. DOD serves as the single lead agency for the detection 
and monitoring of aerial and maritime foreign shipments of drugs 
flowing toward the United States. On an annual basis, DOD's counter-
narcotics (CN) program expends approximately $1.5 billion to support 
the Department's CN operations, including to build the capacity of U.S. 
Federal, State, and local law enforcement agencies, and certain foreign 
governments, and provide intelligence support on CN-related matters and 
a variety of other unique enabling capabilities. EUCOM's AOR is a 
receiving market for much of the world's illegal narcotics.
    In your view, what is the appropriate role of DOD--and by extension 
EUCOM--in counterdrug efforts in the EUCOM AOR?
    Answer. The appropriate DOD role in counterdrug efforts inside the 
EUCOM AOR is to contribute directly and meaningfully to the U.S. 
Interagency development of international, comprehensive, synchronized, 
and proactive drug control strategies. Additionally, EUCOM must work 
with U.S. Country Teams to help build the capacity of partner-nations 
to detect, interdict, and prosecute transnational organized criminals 
before their activities adversely impact the United States or U.S. 
interests. Those interests include stemming the illicit revenues raised 
by the drug trade, revenue which poses a direct threat to U.S. 
interests and security in Afghanistan and along our Nation's southern 
borders.
    Question. Given that the vast majority of illegal drugs arriving in 
Europe are not destined for the United States, should DOD invest 
resources in countering the flow of illegal drugs to or through Europe?
    Answer. Yes. There is a clear financial and logistical illicit 
trafficking nexus in Europe. This nexus, rooted in the drug trade, 
sustains increasingly global illicit trafficking networks that pose a 
direct and growing threat to U.S. security and interests, for it is not 
only drugs that can move across these networks. For an extraordinarily 
modest investment, EUCOM and its Joint Interagency Counter Trafficking 
Center (JICTC) are playing a critical role in the forward defense of 
the United States from this growing 21st century threat. EUCOM's path-
breaking work in this arena is playing a vital role in the support, 
facilitation, and synthesis of a variety of efforts among U.S. 
Government interagency and international partners to implement the 
National TOC Strategy, and take some degree of effective action against 
this multi-billion dollar security challenge. The alternative--
providing no funding and eliminating this important work--will allow 
global illicit traffickers to continue working in and through Europe 
unchecked, with direct and indirect consequences for U.S. security 
efforts and interests.
building partner capacity within the eucom area of responsibility (aor)
    Question. In the past several years, Congress has provided a number 
of new authorities requiring the Departments of Defense and State to 
work collaboratively to provide security assistance to partner nations. 
These include the global train and equip authority (``section 1206'') 
and the Global Security Contingency Fund.
    In your view, what should be our strategic objectives in building 
the capacities of partner nations?
    Answer. In my view, the principal strategic objective of building 
partner capacity is to be able to share more of the burden of 
protecting our vital national security interests with our allies and 
partners. This involves assisting our allies and partners so that they 
can participate in and/or lead multilateral military operations, 
contribute to regional stability, counter transnational threats, and 
provide for their own internal security. At EUCOM, our focus is 
shifting to preserving the partner nation capabilities that have been 
developed through a decade of combined operations in Iraq, Afghanistan, 
and Libya, as well as our building partner capacity efforts, to meet 
the challenges of a post-2014 environment.
    Question. How would you define our strategic objectives for 
building the capacity of partner nations in the European Command area 
of responsibility and in what ways, if any, do those objectives differ 
from other geographic combatant commands?
    Answer. The strategic objectives for building partner capacity in 
the EUCOM area of responsibility are defined in the Guidance for 
Employment of the Force. One of these strategic objectives is that U.S. 
allies and partners in the theater have the capability and capacity for 
regional security, to conduct military operations with the United 
States and NATO, and to contribute to operations worldwide. This 
objective is of special significance to the European theater because of 
NATO, and because the majority of countries in the theater are stable 
democracies with skilled, capable military forces across the joint 
spectrum. As a result, Europe is far more of a security provider than a 
security consumer. The foremost examples of this reality are in 
Afghanistan, where European allies and partners account for 92 percent 
of the non-U.S. forces in the International Security Assistance Force 
(ISAF); and in Libya where, within weeks, NATO quickly assumed 
leadership of the mission and conducted 75 percent of all sorties and 
100 percent of maritime operations.
    Question. What is the relationship of the global train and equip 
authority and the Global Security Contingency Fund to other security 
assistance authorities, such as DOD counternarcotics assistance and 
foreign military financing?
    Answer. Extension of the global train and equip (``section 1206'') 
authority, which is currently set to expire on September 30, 2014, is 
essential for EUCOM to enable Allies and partners to support NATO's 
post-ISAF train, advise, and assist mission in Afghanistan. The 1206 
authority and the Global Security Contingency Fund complement other 
security assistance authorities. For example, section 1206 authority 
has enabled EUCOM to provide pre-deployment training and equipment to 
allies and partners deploying forces to Afghanistan. Prior to fiscal 
year 2010, EUCOM's had minimal capability to provide this type of 
support to our allies and partners due to insufficient authorities and/
or funding from other programs.
    Question. What should be done to ensure that the global train and 
equip authority and the Global Security Contingency Fund do not 
duplicate the efforts of these other assistance programs?
    Answer. A number of safeguards are already in place to avoid 
duplication of effort among the global train and equip authority, the 
Global Security Contingency Fund (GSCF), and other security assistance 
programs. First, DOD and State Department guidance on section 1206 and 
GSCF clearly identifies the purpose and scope of these programs. 
Second, proposals for these programs are fully coordinated within DOD 
and with the State Department. Third, under EUCOM's Theater Campaign 
Plan construct, we develop Country Cooperation Plans and work to align 
the appropriate resources and authorities to requirements down at the 
activity level. Fourth, program managers and authorities experts at 
EUCOM headquarters, the Joint Staff, and the Office of the Secretary of 
Defense work with our planners to ensure that we are using the right 
programs in the right circumstances, and are not duplicating efforts 
across programs.
                          nato transformation
    Question. What is your assessment of the role of Allied Command 
Transformation in effecting positive change among NATO member nations?
    Answer. NATO Allied Command Transformation (ACT) makes a 
significant contribution to training, education, doctrine, and concept 
development across the Alliance.
                   nato members' spending on defense
    Question. According to then-Secretary Gates, in 2011 only 5 of 28 
NATO members, including the United States, met the Alliance target of 
spending at least 2 percent of GDP on defense.
    What is your assessment of the impact on NATO of the failure of the 
majority of NATO allies to meet agreed targets for defense spending?
    Answer. This is a political issue, and a decision for member 
states. The Secretary General recognizes the difficulty of delivering 
defense for the Alliance in times of economic austerity. The Smart 
Defence program, Connected Forces Initiative, and NATO 2020 aim to fill 
capability gaps, but are inadequate without sufficient spending on 
defense by NATO members.
    Question. If confirmed, what steps would you take to encourage NATO 
allies to increase their defense spending and enhance the military 
capabilities that they can contribute to NATO operations?
    Answer. If confirmed, I would see my interaction with NATO members 
at the strategic military level as a major tenet during my tenure as 
SACEUR. This interaction would include discussions on how we can 
improve military capabilities across the Alliance. It should be noted 
that although many NATO members are not currently meeting their 
mandated 2 percent of GDP for defense spending, this is not the only 
measure of a country's military capability. Some countries, such as the 
Netherlands, are developing specific niche BMD capabilities.
            united nations convention on the law of the sea
    Question. What are your views on U.S. accession to UNCLOS?
    Answer. Like former Secretary Clinton, former Secretary Panetta, 
the Chairman and the Vice Chairman of the Joint Chiefs of Staff, the 
Chief of Naval Operations, the Commandant of the Coast Guard, the 
Commanders of U.S. Transportation Command, U.S. Northern Command, and 
U.S. Pacific Command, and the current Commander of U.S. European 
Command, I support U.S. accession to the U.N. Convention on the Law of 
the Sea (UNCLOS).
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. As former Secretary Panetta has testified, the Law of the 
Sea Convention provides a robust legal regime for global operations by 
U.S. Armed Forces. It codifies navigation and overflight rights and 
high seas freedoms that are necessary for the mobility of our forces. 
It is completely in line with, and supports, the U.S. Defense Strategic 
Guidance. To date, 165 states have ratified the convention, and I 
believe that it is in our national security interests to do the same. 
Our current non-party status constrains our efforts to develop enduring 
maritime relationships with partner nations. It also inhibits our 
efforts to expand the Proliferation Security Initiative, and elevates 
the level of risk for our sailors as they undertake operations to 
preserve navigation rights and freedoms. In EUCOM's area of Arctic 
interest, which is significant, the Law of the Sea Convention will 
strengthen our arguments for freedom of navigation through the Northern 
Sea Route and provide stronger moral standing for the United States in 
our extensive cooperative efforts with all of the Arctic states. We 
need to eliminate seams as much as possible when we operate in 
difficult circumstances in the maritime environment with our like-
minded partners. The Law of the Sea Convention would allow us to do 
that.
             quality of life programs for military families
    Question. Three of the top quality of life issues in the EUCOM AOR 
include predictable access to quality health care, including family 
member dental support; ensuring high-quality dependent education 
programs provided by the DOD Dependent Schools; and quality living 
accommodations for military families. Commanders in the EUCOM region 
have emphasized their support for and reliance on EUCOM resources to 
provide crucial morale programs, enhance retention, and foster esprit 
de corps.
    What do you see as the most significant long-term challenges for 
EUCOM in preserving and enhancing the quality of life for assigned 
personnel while force redeployments to the United States proceed?
    Answer. In a resource constrained environment, it is imperative to 
keep faith with, and maintain an enduring commitment to, our forces and 
their families, to include those stationed in Europe, by continuing our 
proven quality of life programs, even as we seek new and innovative 
ways to provide Force and Family Readiness support to those who choose 
to serve.
    Question. If confirmed, what steps would you take to ensure the 
adequacy of support services for military families during the 
transition to ensure that vital support mechanisms, such as Department 
of Defense Schools, morale, welfare and recreation services, family 
housing, and commissary and exchange facilities continue to serve 
military personnel?
    Answer. If confirmed, I will actively support the initiatives 
currently underway to upgrade and improve existing medical, 
educational, and recreational facilities, while continuing to develop 
and expand on partnerships with supporting agencies and services who 
can offer effective and efficient alternatives for the future. EUCOM 
Force and Family Readiness priorities clearly reflect those outlined in 
the President's 2011 report ``Strengthening our Military Families.'' If 
confirmed, I will work with the Services and component commanders to 
ensure we remain steadfastly committed to those priorities.
            sexual assault prevention and response in eucom
    Question. In recent years, the Department of Defense has developed 
comprehensive policies and procedures to improve the prevention of and 
response to incidents of sexual assaults, including providing 
appropriate resources and care for victims of sexual assault. Numerous 
cases of sexual assault and misconduct involving military personnel 
continue to be reported. Many victims and their advocates contend that 
they are victimized twice: first by attackers in their own ranks and 
then by unresponsive or inadequate investigations and emotional support 
for the victim.
    Secretary Panetta has recently announced several new initiatives to 
curb sexual assaults in the military and to improve support for 
victims.
    What is your assessment of the Secretary of Defense's recently 
announced initiatives, and, if confirmed, how would you implement them 
in EUCOM?
    Answer. I support the Former Secretary's recent initiatives to 
combat sexual assault and think they demonstrate the Department's 
commitment to eradicating sexual assault from our ranks. These 
initiatives ensure commanders have the resources they need to 
investigate and prosecute sexual assault cases, and provide additional 
support for victims to ensure they are fully protected and receive the 
care they need. If confirmed, I will continue to ensure commanders have 
the resources they need to investigate accusations of sexual assault, 
provide care and support for victims and fairly adjudicate each case. 
Lastly, I will promote a climate that encourages reporting without fear 
and holds perpetrators accountable.
    Question. What is your understanding of the resources and programs 
in place in EUCOM to offer victims of sexual assault the medical, 
psychological, investigative, and legal help that they need?
    Answer. I am not aware of any shortfalls or deficiencies in command 
leadership, personnel, or training to prevent or respond to sexual 
assault in the EUCOM Area of Responsibility.
    It is my understanding the entire EUCOM AOR has resources and 
programs in place to offer victims of sexual assault the medical, 
psychological, investigative, and legal help required. If confirmed, I 
will work with Service Component commanders to ensure they continue to 
have appropriate resources and support to implement effective sexual 
assault prevention and response programs. In addition, I will ensure 
every measure is in place to support victims.
    Question. What is your view of steps the command has taken to 
prevent sexual assaults in EUCOM?
    Answer. The EUCOM leadership closely monitors command climate 
indicators and reports of sexual assault, and responds with effective 
command messages and directives that foster a zero tolerance 
environment for sexual assault. If confirmed, I will promote a climate 
that encourages reporting without fear and holds perpetrators 
appropriately accountable.
    Question. What is your view of the adequacy of the training and 
resources in EUCOM to investigate and respond to allegations of sexual 
assault?
    Answer. The Services recently enhanced their resources for 
investigating and responding to allegations of sexual assault. If 
confirmed, I will review the Command's sexual assault prevention and 
response program to evaluate its effectiveness and ensure adequate 
resources are available. I will also work with Service component 
commanders to ensure we continue to emphasize the importance of 
training and educating servicemembers on the program, their rights and 
the command's commitment to safeguard them from predatory behavior in 
the ranks.
    Question. What is your view of the willingness and ability of 
military leaders to hold assailants accountable for their actions?
    Answer. The Department's policy emphasizes the command's role in an 
effective response. Special training is provided to commanders, 
investigators, and prosecutors to ensure they are prepared to address 
incidents of sexual assault. Our policies seek to balance victim care 
and appropriate command action against offenders in order to build 
victim confidence to assist in investigations. As military leaders, we 
must be vigilant to our duties to hold those assailants accountable for 
their actions. I take this obligation very seriously.
    Question. Do you consider the current sexual assault policies and 
procedures, particularly those on confidential reporting, to be 
effective?
    Answer. Overall, the Department has put considerable effort into 
developing policies and procedures designed to address sexual assault. 
In fact, the department faces the same challenges that society faces in 
dealing with incidents of sexual assault--balancing care to victims 
with prosecuting offenders. Restricted reporting allows victims who 
wish to remain anonymous to come forward and obtain the support they 
need following an assault. I consider these policies and procedures to 
be effective.
    Question. What problems, if any, are you aware of regarding the 
manner in which the confidential reporting procedures have been put 
into effect?
    Answer. I am not aware of any problems with confidential reporting.
        mental health of servicemembers and stress on the force
    Question. The committee is concerned about the stress on military 
personnel resulting from lengthy and repeated deployments and their 
access to mental health care to deal with this increased stress. 
Increased suicide rates are clear reminders that servicemembers, 
particularly those who have been deployed multiple times, are under 
tremendous stress and need access to mental health care.
    In your view, are there sufficient mental health assets in EUCOM to 
address the mental health needs of the military personnel and their 
families?
    Answer. Across the EUCOM AOR, I understand there currently exists 
an identified shortage of mental health providers available to treat 
servicemembers and their families. The Service components have done 
much to improve this situation over the past 3 years and continue to 
push ongoing initiatives to close the gap. If confirmed, I will work 
with the Service components to ensure any remaining gap in behavioral 
health services is adequately addressed.
    The Army, Navy, and Air Force medical facilities in Europe are 
actively involved in addressing the behavioral health needs of its 
beneficiaries. Some of the major efforts include:

          Integrated Behavioral Health Consultants in Primary Care: 
        Research has demonstrated that the primary health care setting 
        is optimal for identifying behavioral health difficulties in 
        the general population. This is specifically true for the 
        identification of depression and post-traumatic stress 
        disorder. By integrating behavioral health professionals into 
        the primary care clinics, these issues are quickly identified 
        and receive treatment or appropriate coordination and referral 
        for further care by a specialized behavioral health clinic. 
        These providers are also available to provide behavioral health 
        consultation to the primary health care providers as well as 
        provide behavioral health educational modification 
        interventions for patients with complicated conditions or low 
        compliance with medical treatment. Moreover electronically 
        secure communication to mental health services have been better 
        marketed and implemented.
          Community Outreach: USAFE and Army Installation Management 
        Command-Europe adopted toll-free, confidential, anonymous, 
        telephonic crisis hotline access for servicemembers, veterans, 
        and family members in Europe to information, with Veterans 
        Affairs counselors available 24/7 that performed over 500 
        direct crisis contact interventions in 2012. Other expansion 
        efforts by Army, Navy and Air Force teams have included 
        broadened mental health consultation in DOD Dependent Schools, 
        and nearly 600 separate prevention events in 2012 aimed at 
        12,100 students that resulted in 230 students being enrolled in 
        counseling sessions. More Military and Family Life Consultants 
        have been hired, and overall closer linkages have been also 
        fostered with Family Advocacy, and additional teamwork have 
        succeeded with community organizations.
          Additionally, the Army Medical Department in Europe is 
        actively involved in addressing the behavioral health needs of 
        its soldiers in two ways:
          Embedded Behavioral Health (EBH) Teams: The Army directed the 
        implementation of multi-disciplinary EBH for all operational 
        units. This modality assigns an EBH team with each brigade-
        sized element, and empanels all battalion-sized unit soldiers 
        to the same provider. Further, the EBH team is located within 
        the brigade-sized elements' footprint. The Army Public Health 
        Command conducted a number of evaluations of this model and 
        found that it decreases the stigma associated with seeking 
        behavioral health treatment and improves access to care, 
        continuity of care, Commanders' satisfaction, and treatment 
        outcomes. This initiative will continue to be rolled out 
        through fiscal year 2016 to all operational units in U.S. Army 
        Europe.
          Behavioral Health Data Portal (BHDP): The Army directed the 
        use of the BHDP with all Active Duty soldiers receiving 
        treatment in outpatient behavior health clinics. The BHDP is a 
        set of validated survey instruments that soldiers fill out at 
        intake, and at follow-up appointments as appropriate. This 
        initiative powerfully impacts soldier treatment in two 
        important ways. First, the BHDP creates the ability to quantify 
        treatment outcomes across the enterprise. Second, it displays 
        for both the provider and the soldier evidence of improvement 
        or lack of improvement, which can be addressed during treatment 
        sessions. Research demonstrates the positive influence of 
        incorporating evidence of patient progress into treatment.

    Question. If confirmed, what actions will you take to address the 
mental health needs of military personnel and their families in EUCOM?
    Answer. If confirmed, I will work with the component commanders to 
ensure continued adequate resourcing as well as emphasis on evidence-
based mental health treatments proven to improve the mental health of 
our servicemembers. I will demand that leaders at all levels work to 
decrease the stigma associated with seeking mental health treatment, 
and work to increase access to mental health treatment for military 
personnel and their families.
    Question. What is your assessment of suicide prevention programs 
and resources available to support these programs in EUCOM?
    Answer. Through leadership, I will continue to support activities 
that reduce the stigma associated with seeking behavioral health 
treatment. A very successful technique is encouraging Senior leaders to 
reveal, as appropriate, their own positive interaction with behavioral 
health treatment and acknowledge that behavioral health issues can be a 
direct outcome of military service. I will emphasize the importance of 
AOR-wide Exceptional Family Member Program Family (EFMP) travel 
decisions. The identification and assessment of family members' 
behavioral health needs prior to PCS to EUCOM remains an important risk 
mitigation process. The EFMP family travel decision process: (a) 
supports family members' health overseas; (b) supports the 
servicemembers' ability to focus on his/her mission; and (c) reduces 
the likelihood of an ``Early Return of Dependents'' (ERD) to more 
robust behavioral health services in CONUS. I will also engage in 
strong, dynamic Command messaging that emphasizes behavioral health 
issues are treatable, and that the majority of servicemembers improve 
when they engage in behavioral health services and stick with treatment 
until completion.
    It is also worth noting that our Army component within EUCOM, U.S. 
Army Europe, has fewer soldier suicides than Army posts of comparable 
size in the United States. There are good prevention programs at work 
within Europe, and I will continue to identify and expand those 
programs that work, while transitioning away from those that do not.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, I do.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes, I do.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. EUCOM and 
Supreme Allied Commander, Europe?
    Answer. Yes, I do.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, I do.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, I do.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Jeanne Shaheen
                          nato burden-sharing
    1. Senator Shaheen. General Breedlove, the North Atlantic Treaty 
Organization (NATO) burden-sharing will continue to be a topic of 
interest for this committee and for the NATO alliance as a whole. While 
we do see some countries moving further away from their 2 percent 
commitments, there are some--like Estonia and Poland--who have placed a 
greater emphasis on defense spending in recent years. In your view, are 
the Europeans appropriately sharing the burden associated with NATO's 
ongoing transformation and its approach to 21st century threats?
    General Breedlove. We need to continue to encourage allies to meet 
the agreed commitment of a minimum of 2 percent of gross domestic 
product (GDP) spending on defense. Defense budgets in most countries 
have declined at a time when the alliance has undertaken its most 
demanding and significant mission ever in Afghanistan, and when the 
need for investment in future capabilities is essential. However, 
European NATO nations do recognize the global security challenges--we 
have seen this recently with the French led intervention into Mali as 
one example. NATO allies have taken steps to address the issues related 
to falling defense budgets with the announcement at the Chicago Summit 
in 2012 of a Defense Package and key initiatives such as Smart Defense 
and the Connected Forces Initiative. Alongside the 2 percent guideline, 
allies have agreed that at least 20 percent of defense expenditures 
should be devoted to major equipment spending. While only four other 
allies have met this goal, investment in major equipment by the non-
U.S. allies has held steady at about $50 billion per year for the last 
decade.

    2. Senator Shaheen. General Breedlove, do you believe the 
contributions from our European partners in NATO are adequate to 
implementing the alliance's Strategic Concept, as adopted at the 2010 
Summit in Lisbon?
    General Breedlove. It is true that individual sovereign governments 
continue to make inwardly focused decisions on defense spending, in 
many cases not achieving the self-imposed NATO 2 percent GDP benchmark. 
However, our European partners still represent the second largest 
defense spending block ($280 billion) in the world--after the United 
States ($682 billion/year), but ahead of China ($166 billion/year) 
and Russia ($90 billion). Europe is still investing in defense, 
focused on contributing to NATO and preserving the expeditionary 
capabilities and interoperability that has been developed over the past 
decade of combat operations with the United States.
    I believe there are three capabilities that will be critical to 
NATO's success as we face 21st century threats: cyber, Special Forces, 
and unmanned reconnaissance platforms. NATO is increasingly using 
Centers of Excellence to develop and refine capabilities, notably the 
Cyber Center in Estonia. NATO realizes this capability will be the 
lynchpin for successful future operations and conflicts. The effective 
use of cyber defense may even lessen the chance of conflict if our 
allies' systems are more resilient to cyber attacks. Additionally, the 
NATO Special Operations Headquarters is up and running in their new 
facility across the street from my Headquarters. NATO nations are using 
this facility for coordination and in combination with the training 
facilities that are in place at Chievres Air Field a few kilometers 
away. Finally, NATO has also done an outstanding job with our AWACS 
program. The alliance is now pursuing the Alliance Ground Surveillance 
(AGS) system to enhance the alliance's ability to have persistent 
situational awareness.
    European partners are also looking for more cooperative solutions 
to security problems. The Baltic Air Policing mission is a great 
example of the allies pooling resources to meet a requirement. The C-17 
Heavy Airlift Wing in Hungary is another example of this cooperation. 
The alliance's collective approach to Ballistic Missile Defense makes 
this essential capability an achievable goal.
    So, in spite of economic challenges, Europeans are still focused on 
defense and the support of the alliance, even if each is not currently 
meeting the 2 percent benchmark. They are demonstrating their 
commitment in areas such as cyber, Special Operations, intelligence, 
surveillance, and reconnaissance (ISR), and are showing a greater 
desire to cooperate using ``Smart Defense''.

    3. Senator Shaheen. General Breedlove, will you commit to raising 
the burden-sharing issue and ensuring that it receives the proper 
attention from our European allies?
    General Breedlove. Yes. Based on NATO contribution goals and 
capability targets, most European NATO nations should do more. Non-U.S. 
NATO allies have considerable aggregate economic strength, with the 
combined total GDP similar to that of the United States. The problem is 
that under austerity budgets there is insufficient political will to 
invest in defense capabilities. I will encourage allies to increase 
their defense spending so they have the right forces and capabilities 
required to address the threats of the 21st century. Additionally, I 
will also ask non-NATO allies to invest in their own armed forces in 
terms of recruitment, retention, training, and equipping to be able to 
address the increasingly complex threats we face in common with the 
professional, highly-trained forces we need.
    While I will do all I can to encourage better burden sharing with 
our European allies, I want to point out progress made thus far on 
burden sharing. From 2007-2009, nine NATO countries--United Kingdom, 
France, Spain, Denmark, Norway, Germany, Belgium, Luxembourg, and 
Greece--exceeded the United States in foreign assistance funding. In 
2010, seven European countries--United Kingdom, France, Iceland, 
Germany, Netherlands, Denmark, and Norway--exceeded the U.S. funding 
contribution to U.N. peace operations in terms the amount contributed 
as a percentage of GDP. In 2011, four European NATO Nations 
(Luxembourg, France, United Kingdom, and Turkey) met or exceeded the 20 
percent NATO guideline for defense spending on major equipment. 
Finally, in 2011, the average of all European NATO nations' spending on 
major equipment and R&D was 19 percent, as a percentage of defense 
expenditures. In conclusion, I will do everything in my power to ensure 
that our allies and partners are ready to meet the challenges of an 
increasingly complex world.

                                 poland
    4. Senator Shaheen. General Breedlove, the U.S. bilateral security 
relationship with Poland is crucial. We have seen an increased U.S. 
presence in Poland through military engagements and a new Patriot 
missile battery rotation. Can you reiterate for us why Poland is so 
important for the United States and for regional security?
    General Breedlove. Poland has consistently supported U.S. foreign 
policy, contributing troops to operations in Iraq and Afghanistan. 
Poland ranks fourth in total force contributions out of 49 partner 
nations.
    Poland's economy is among the strongest in the EU, with 14.9 
percent GDP growth since 2008 compared to -0.6 percent decline EU-wide. 
A constitutionally mandated defense budget of 1.95 percent GDP ensures 
Poland's defense expenditures grow in line with its economy. Its 
economic growth, vibrant democracy, demographic trends, and natural 
resources all point to a growing role for Poland in the 21st century.
    Poland takes seriously its commitment to NATO and has also agreed 
to host the second U.S. missile defense interceptor site in the 2018 
timeframe as part of the U.S. European Phased Adaptive Approach (EPAA) 
and NATO missile defense.
    Poland has announced plans to spend approximately $10 billion to 
acquire modern integrated air and missile defense systems, which will 
be interoperable with NATO.
    Poland has assumed a leadership position in Central Europe and 
continues to push for democratization efforts in the Ukraine and 
Belarus.
    Note: The Patriot rotations to Poland ended in November 2012 with 
the activation of the Aviation Detachment. U.S. European Command 
(EUCOM) J5 and USAREUR are unaware of any current plans for a new 
Patriot rotation.

    5. Senator Shaheen. General Breedlove, missile defense cooperation 
seems to be an important area of cooperation with Poland--and an area 
for possible further growth. We have completed the Ballistic Missile 
Defense (BMD) agreement as part of the EPAA. However, Poland also plans 
to spend millions of dollars on its own theater missile defense needs. 
In fact, the modernization of Poland's missile defense program has been 
identified as one of its top three priorities through 2022. This would 
seem to be a great opportunity for deeper U.S.-Poland cooperation and 
for the U.S. defense industry. If confirmed as EUCOM Commander, how 
will EUCOM assist the Polish Government in their effort to enhance 
their air and missile defense capability?
    General Breedlove. EUCOM participates in a bi-lateral Integrated 
Air and Missile Defense (IAMD) Working Group with the Polish Ministry 
of Defense. The primary goal of this working group is to assist in 
identification of Polish operational requirements leading to selection 
and development of a Polish national IAMD System compatible with EPAA 
and interoperable with the developing NATO BMD systems.
    U.S. policy, as described in the 2010 Ballistic Missile Defense 
Review, is to continue to strongly encourage additional allied 
contributions to NATO Missile Defense.

    6. Senator Shaheen. General Breedlove, will you work to ensure that 
the Polish national air and missile defense system is interoperable 
with NATO's missile defense system?
    General Breedlove. Yes. EUCOM continues to advocate for development 
of a Polish national Integrated Air and Missile Defense system that is 
both compatible with the EPAA and fully interoperable with the 
developing NATO BMD systems.

                             kosovo-serbia
    7. Senator Shaheen. General Breedlove, over the last year, we have 
seen some progress on Serbia-Kosovo relations. However, tensions remain 
high and miscalculation could result in negative consequences and the 
possibility of further bloodshed. It is critical that we maintain a 
focus on this important region so as not to lose the gains we've fought 
so hard for over the last decade and a half. Can you give us your 
assessment of the security situation in Kosovo and the need to maintain 
a troop presence in KFOR [the NATO implementation force in Kosovo] in 
the coming years?
    General Breedlove. I am cautiously optimistic that recent political 
progress can return rule of law to the disputed Northern Kosovo region. 
However, I expect periods of civil unrest throughout the long and 
difficult process of restoring Pristina's authority. In Northern 
Kosovo, the parallel government is closely connected to organized 
crime, and has much to lose if and when rule of law and border control 
is reestablished. U.S. presence in KFOR is vital to maintain KFOR 
credibility with Kosovo institutions and multi-ethnic populations.

                                georgia
    8. Senator Shaheen. General Breedlove, Georgia was promised future 
NATO membership at the Bucharest Summit; however, since then, the path 
forward for Georgia has been uncertain. I believe Georgia still has 
reforms to undertake before it should be considered a NATO member; 
however, it is important that we offer a clear path forward for them. 
What is your view on the important role Georgia has played in the fight 
in Afghanistan?
    General Breedlove. Georgia has been a stalwart supporter of NATO 
operations in Afghanistan, providing eleven infantry battalions to 
Regional Command-Southwest since 2010, with each battalion comprising 
approximately 750 soldiers. Georgia is currently the largest per capita 
and non-NATO troop contributor to ISAF. In the fall of 2012, Georgia 
nearly doubled its troop contribution, and now deploys two infantry 
battalions simultaneously. These Georgian units make up half the 
infantry force in Helmand Province. They operate without caveats, and 
have committed these battalions to the ISAF mission through November 
2014.
    Georgia has suffered 19 soldiers killed and 129 wounded in action. 
Through it all, reports coming back from Helmand speak of the 
Georgian's professionalism, bravery, and commitment.
    Despite its losses, Georgia stands by the United States and NATO in 
our efforts in Afghanistan and has already made offers to NATO's post-
2014 mission, including combat forces and training and equipment for 
the Afghan National Security Forces (ANSF). The Georgian Government has 
also pledged $1.5 million for the first 3 years of the transition 
period to support the ANSF.

    9. Senator Shaheen. General Breedlove, how important is it that we 
remain engaged with the new government in Georgia--particularly with 
respect to its NATO membership goals?
    General Breedlove. It is very important.
    The United States has recognized the first successful democratic 
and peaceful transition of power in Georgia's history. EUCOM will 
continue our current enhanced security cooperation engagements with the 
new government based on mutually agreed priorities just as we have done 
in the past. The new Georgian military leadership has already 
demonstrated through words and actions, its continued desire for 
institutional reform and increased transparency.
    Through its contributions to missions in Kosovo, Iraq, and 
Afghanistan, Georgia has demonstrated its value as a coalition partner 
and future member of NATO. We will continue to work with the new 
government on critical capacity building and inter-operability 
projects. To that end, Georgia has one of the most robust Foreign 
Military Financing programs in EUCOM.
    We also continue to move forward on the six engagement areas 
President Obama and President Saakashvili agreed to in January 2012, 
which will help the Georgians improve their national defense 
capabilities. Those are:

        <bullet> Operational air surveillance/air defense training and 
        education
        <bullet> Coastal surveillance training and education
        <bullet> Tactical level train-the-trainer instruction for NCOs 
        and Junior Officers
        <bullet> Brigade command and staff training and education
        <bullet> Defensive combat engineer training and education
        <bullet> Utility helicopter aviation training support

                      nato-russia missile defense
    10. Senator Shaheen. General Breedlove, do you anticipate that 
missile defense could be an area for possible cooperation with the 
Russians?
    General Breedlove. Yes. Missile Defense is one of the six areas of 
cooperation that NATO pursues with the Russian Federation in the 
framework of the NATO-Russia Council.
    Although there was progress made in the joint analysis of mutual 
regional threats, progress on NATO-Russia missile defense cooperation 
remains slow and difficult. Positions on the overarching political 
issues are entrenched and continue to impede development of the two 
main strands of practical cooperation, the Joint Analysis for a 
framework for missile defense cooperation and the resumption of Theatre 
Missile Defense (TMD) cooperation.

    11. Senator Shaheen. General Breedlove, specifically, what kinds of 
cooperative efforts on missile defense are possible and could result in 
mutual security benefits for NATO and/or Russia?
    General Breedlove. In addition to the efforts mentioned in answer 
to question #10, the NATO-Russia Council (NRC) Missile Defense Working 
Group has had initial discussions on the two new initiatives proposed 
in NATO's Chicago declaration establishing joint missile defense 
centers and developing a transparency regime. However, Russia has 
rejected development of proposed joint missile defense centers until 
the political matters of principle are resolved and has indicated that 
it prefers to hear a detailed NATO proposal on a possible improvement 
to transparency before engaging.

                         nato-russia relations
    12. Senator Shaheen. General Breedlove, what is your goal--should 
you be confirmed--with respect to the future of the NATO-Russia 
relationship?
    General Breedlove. Since 1991, Russia has been a partner of the 
North Atlantic Treaty Organization. At times our partnership and 
cooperation is robust and beneficial to the alliance. In the Balkans, 
from 1996 to 2003, Russian soldiers conducted joint operations with 
NATO forces. In 2006 and 2007, Russia deployed ships to the 
Mediterranean Sea as part of the NATO Operation Active Endeavor, and 
today we are cooperating in the Gulf of Aden countering piracy. In 
Afghanistan, we are developing mechanisms for logistic support to the 
ANSF, while regionally we are cooperating with Russia to develop 
capacity in the counter narcotics realm. Most recently, during the NATO 
Foreign Ministerial, the NATO Russia Council agreed to intensify their 
work together on Afghan National Air Force Aviation training. With 
these successes, there too have been significant challenges such as 
missile defense and conventional arms control, which still affect the 
relationship today.
    The NRC is where the 28 allies and Russia meet as equals in a 
format of 29 nations. This forum provides the framework for 
consultations on current security issues and practical cooperation in a 
wide range of areas of common interest.
    The NRC is where nations determine the level of military 
cooperation and develop the NATO-Russia Work Plan. Currently, there are 
six specific areas of cooperation; Logistics, Combating Terrorism, 
Search and Rescue at Sea, Counter Piracy, Military Academic Exchanges, 
and Theater Missile Defense.
    We will continue to look for new areas of cooperation which support 
NATO objectives, develop the capacity for joint action, and which 
promote operator-to-operator engagement. These efforts will contribute 
to improving trust as well as create reciprocal transparency and 
predictability, with the aim of contributing to the establishment of a 
common space of peace, security, and stability.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
             defense of israel and iranian nuclear program
    13. Senator Inhofe. General Breedlove, President Obama has 
repeatedly stated that allowing Iran to acquire a nuclear weapon is 
unacceptable and must be prevented. Most recently during his trip to 
Israel the President said, ``We will do what is necessary to prevent 
Iran from getting the world's worst weapons.'' If the President 
determines military action is required to stop Iran's acquisition of a 
nuclear weapon, EUCOM will undoubtedly play a key role in any 
operation. Do you agree with the President that a nuclear-armed Iran is 
unacceptable and must be prevented?
    General Breedlove. I support the President's policy as stated. 
Having said that, I also agree with the President and Prime Minister 
Netanyahu that the preference is to resolve this situation 
diplomatically. In any case, given the levels of unprecedented 
coordination and consultation between EUCOM, other U.S. combatant 
commands, and the Israeli military along with partner nations, EUCOM is 
prepared to play a key role in any operation.

    14. Senator Inhofe. General Breedlove, do you agree with the 
President that the use of U.S. military force may be necessary to 
prevent Iran from acquiring a nuclear weapon?
    General Breedlove. I agree with the President. When it comes to 
preventing Iran from acquiring a nuclear weapon, no options should be 
taken off the table, to include the use of military force. I support 
the President's position on resolving this issue diplomatically, though 
Iran should have no doubt about the resolve of the United States and 
EUCOM's preparedness to be a key player for any contingency should the 
need arise.

    15. Senator Inhofe. General Breedlove, if confirmed, will you 
ensure the forces under your command are prepared to carry out 
contingency plans, as ordered by the President, to confront Iran's 
nuclear program?
    General Breedlove. Yes.

    16. Senator Inhofe. General Breedlove, do you agree that the United 
States must maintain a credible threat of the use of force against Iran 
and that a public conversation that downplays the threat of force is 
counterproductive and actually raises the potential that force may need 
to be used?
    General Breedlove. The U.S. military must always be prepared to 
support U.S. policy goals for any contingency whether it be against 
Iran or any other threat to U.S. security and national interests. EUCOM 
is postured to maintain a credible threat of the use of force and is 
prepared to play a key and supporting role in the region when directed.

    17. Senator Inhofe. General Breedlove, the United States and Israel 
hosted the largest ever joint military drill between the two countries 
this past October. The drill, called Austere Challenge, hosted over 
3,500 U.S. personnel in Israel and had been planned for more than 2 
years as part of a longstanding agreement between EUCOM and the Israel 
Defense Force to regularly hold bilateral training exercises regularly. 
If confirmed, will you support continued joint exercises with our ally, 
Israel?
    General Breedlove. Yes, EUCOM and the Israel Defense Force have a 
longstanding relationship and combined exercise program that includes 
seven semi-annual, annual, and biennial exercises: Juniper Cobra, 
Juniper Falcon, Juniper Stallion, Noble Dina, Noble Melinda, Noble 
Rose, Noble Shirley, and Reliant Mermaid.

    18. Senator Inhofe. General Breedlove, what tangible benefits does 
the United States derive from these joint exercises with Israel?
    General Breedlove. The strategic partner relationship the United 
States and Israel maintain in the Middle East is vital to stability in 
the entire region. Tensions throughout the Levant have been on the 
increase for the last year. EUCOM stands by its valued strategic 
partnership with Israel and will continue to improve on the bilateral 
cooperation between the two nations. Combined air defense training 
exercises are designed to maintain the interoperability between the 
United States and the Israel Defense Forces (IDF). While driven by the 
overall situation in the Middle East, joint U.S./IDF exercises do not 
relate to an individual incident or development. As part of our mission 
to build partnership capacity, bilateral exercises such as Austere 
Challenge are conducted on a routine basis. These exercises focus on 
improving only defensive capabilities, not offensive.

    19. Senator Inhofe. General Breedlove, from the Austere Challenge 
Exercise, what areas do we need to work on to be ready to help defend 
Israel?
    General Breedlove. Following Austere Challenge 12 (AC12), the 
largest exercise with the Israelis to date, the next logical step is to 
now maintain the cooperative military capabilities between our two 
nations. EUCOM's next exercise with the Israel Defense Force is Juniper 
Cobra 14 (JC14), currently in the early design stage. JC14 will be 
designed to sustain the level of interoperability established by 
Austere Challenge 12.
    Specific AC12 Lessons Learned/areas to work on and proposed 
solutions include:

        <bullet> 6.5 Software. Patriot Post-Deployment Build 6.5 
        software anomalies were observed in AC12 (debris showing as 
        false targets). EUCOM is working with the Program Office in 
        order to gain Lower Tier Project Office verification.
        <bullet> Increased Interoperable and Distributed Training. Due 
        to personnel rotations, frequent and robust training is 
        required between the combined U.S.-Israeli team. In addition to 
        the biannual Juniper Cobra exercise, EUCOM is exploring, with 
        the assistance of the Missile Defense Agency, options for 
        distributed monthly and/or quarterly training.

    20. Senator Inhofe. General Breedlove, what do you think of the 
Iron Dome system employed by Israel when the terrorist organization 
Hamas fired over 1,500 rockets and missiles at the Israeli population 
in November 2012?
    General Breedlove. Iron Dome is Israel's newest operational missile 
defense system. These Iron Dome batteries provide Israeli population 
centers, within range of Gaza rockets, with a persistent defensive 
capability that does not exist with systems such as the Patriot or 
Arrow missile defense systems. To date, official Israeli reports on 
Iron Dome weapon system effectiveness show that the system performed 
very well in combat operations. After the November 2012 conflict, 
Israeli officials placed the overall system's success rate at 84 
percent.

    21. Senator Inhofe. General Breedlove, what is your overall 
assessment of our missile defense cooperation with Israel?
    General Breedlove. [Deleted].

                 israel, turkey, and regional stability
    22. Senator Inhofe. General Breedlove, over the last few years, 
Turkey has sought to exclude Israel from joint exercises with the 
United States and NATO. Do you agree Israel's participation in joint 
exercises with NATO is beneficial?
    General Breedlove. I absolutely agree with the statement that 
Israel's participation in exercises with NATO is beneficial. I have 
been concerned by the impact on NATO partnership cooperation activities 
of Turkey's bilateral dispute with Israel. Israel engages with NATO in 
the framework of the Mediterranean Dialogue. The Mediterranean Dialogue 
is one of the few security cooperation venues in the world where Israel 
can engage in constructive activities with Arab states. Besides Israel 
and Turkey, the other six members all come from the Arab world 
(Algeria, Egypt, Jordan, Morocco, Mauritania, and Tunisia). In this 
sense, NATO serves as a platform which can foster better understanding 
of issues through such initiatives as the NATO Regional Cooperation 
Course at the NATO Defense College which has seen attendance by 
Israeli, Turkish, American, and other NATO officers and diplomats to 
jointly study security challenges together. Now that Israel and Turkey 
are working constructively towards resolution of the dispute, I am 
cautiously hopeful that the resumption of Israel-NATO cooperation will 
soon extend across the full range of NATO activities that help states 
within the region address common regional challenges.

    23. Senator Inhofe. General Breedlove, should the U.S. military 
participate in exercises with Turkey if it demands Israel be excluded?
    General Breedlove. The improvement of Israeli-Turkish relations is 
in the best interests of the United States, Israel, Turkey, and the 
region. EUCOM should stand ready to facilitate those activities that 
rapidly restore the strength of their relationship including exercises 
that involve both Turkey and Israel.

    24. Senator Inhofe. General Breedlove, what is your assessment of 
Prime Minister Erdogan's regional ambitions?
    General Breedlove. Prime Minister Erdogan's domestic security 
considerations shape his regional outlook. Turkey's conflict with the 
Kurdistan Workers' Party is a case in point. This conflict has spanned 
3 decades and cost over 40,000 lives. Recently, there has been some 
progress toward opening a dialogue that may signal a reduction in 
violence in that struggle, though it is too early to give a clear 
assessment. But we are supportive of this effort. PM Erdogan 
appreciates that Turkish power within the region is on the rise, but 
that Turkey will gain more through economic cooperation with neighbors 
than through a more aggressive foreign policy. Turkey's economy has 
outperformed regional economies over the last decade, but Turkey 
remains dependant on natural gas imports that drive their cooperation 
with regional exporters, including Russia and Iraq. In the event of 
some regional exigency, PM Erdogan will remain sensitive to perceptions 
of Turkey acting unilaterally and generally takes the position that 
Turkey should act as a part of a coalition.

    25. Senator Inhofe. General Breedlove, do you think Turkey's 
cooperation with EUCOM and NATO on Syria has been adequate?
    General Breedlove. As Syria's northern neighbor, Turkey understands 
the threat, takes it seriously, and is engaged with the international 
community for support. Turkey is a strong and reliable ally of both the 
United States and NATO in an unstable region. In response to the Syrian 
threat, Turkey has requested and welcomed cooperation in a number of 
areas including combined staff planning and the deployment of Patriot 
Missiles to defend the Syrian border region. In January, NATO deployed 
six Patriot Batteries to Turkey's southern border to augment Turkey's 
air defenses. The United States, Germany, and the Netherlands each 
contributed two Patriot Batteries to this effort. Over the past year, 
EUCOM has worked with Turkey to support and enhance its capabilities to 
respond to various Syrian threats. Several of these efforts have been 
in support of broader Department of Defense (DOD) and Department of 
State initiatives, such as counter- and non-proliferation. It is 
important to note that Turkey is currently home to over 250,000 Syrian 
refugees, has lost two Air Force pilots to Syrian air defenses, and has 
sustained multiple cross-border indirect fire incidents due to the 
Syrian crisis.

    26. Senator Inhofe. General Breedlove, what plans does EUCOM or 
NATO have to secure chemical weapons in Syria if Assad falls and 
security of Syrian chemical weapons deteriorates to the point where 
proliferation is possible, if not likely?
    General Breedlove. Proliferation of chemical weapons is a very 
serious matter that could undermine regional stability. Since Syria is 
in the area of responsibility of the U.S. Central Command (CENTCOM), I 
respectfully request this question be referred to that command.
    As with U.S. and international involvement in Libya in 2011, a 
resolution from the U.N. Security Council and agreement among the 
alliance's 28 members is necessary before NATO assumes a military role 
in Syria. NATO is prepared, if called upon, to be engaged.
    Several NATO countries are working on individual contingency plans 
for possible military action in Syria. Within individual member 
countries, discussion regarding options including lethal support, no-
fly zones, and arms embargoes are being considered.
    That said, given that Israel and Turkey border Syria, EUCOM 
planners are fully integrated and synchronized with CENTCOM efforts and 
maintain a strong relationship with our NATO allies.

                             counter piracy
    27. Senator Inhofe. General Breedlove, NATO has had success in 
anti-piracy operations off the Horn of Africa. With expanding oil 
discoveries in the Atlantic Ocean off of the coast of Western Africa, 
and drug trafficking that runs from South America through that same 
area to Europe, do you see the potential need for an anti-piracy 
mission off of the west coast of Africa? If so, do you envision a 
potential counter-piracy mission off of the west coast of Africa as a 
U.S. force, a NATO force, or some combination?
    General Breedlove. As a preliminary matter, the Gulf of Guinea is 
neither in EUCOM nor NATO's Area of Responsibility. I understand that 
AFRICOM is successfully working with West African nations to assist in 
the development of their maritime capabilities in order to improve 
safety and security in the Gulf of Guinea. I believe AFRICOM is in a 
better position to assess whether Gulf of Guinea states may require 
additional support.
    That said, each region is faced with its own unique root causes of 
piracy; each will require unique solutions. The strategic environment 
and imperatives which led to NATO's involvement in the current counter-
piracy mission are quite different from that off the coast of West 
Africa. NATO's mission to counter maritime piracy began in 2008 with 
the request from the United Nations to provide escorts to U.N. World 
Food Program vessels transiting through dangerous waters to deliver 
humanitarian aid to Somalia.
    In addition to the threat piracy posed to humanitarian efforts in 
Africa, there was an internationally recognized threat to the safety of 
vital sea lines of communication and economic interests off the Horn of 
Africa and in the Gulf of Aden. This included risks to the safety of 
one of the busiest and most important maritime routes in the world--the 
gateway to and from the Suez Canal.
    Countering piracy requires a mix of maritime security capabilities, 
use of best practices by the commercial shipping industry, and rule of 
law ashore. NATO continues to contribute to international counter-
piracy efforts in full accordance with the relevant U.N. Security 
Council Resolutions relating to Somali-based piracy and with the 
consent of Somali authorities.
    An increase in piracy and maritime crime in the Gulf of Guinea is 
of growing concern to the maritime community, but lies outside the 
current area of operations for NATO vessels. Where the counter-piracy 
mission off the coast of Somalia, a failed state, required an 
international response, the Gulf of Guinea is lined with sovereign, 
functioning nations. The United Nations and others have called for 
nations of West Africa to develop a comprehensive regional anti-piracy 
strategy for the Gulf of Guinea.

                                  mali
    28. Senator Inhofe. General Breedlove, what type and quantity of 
air support has been provided to the French in Mali?
    General Breedlove. To date, EUCOM's air support to the French has 
been primarily aerial refueling and airborne ISR. Three KC-135 aircraft 
were deployed to Spain to provide tanker support to French strike 
aircraft. One E-8 was deployed to Spain to provide ISR in support of 
French operations in Mali, and two additional KC-135 aircraft were 
deployed to support the E-8 ISR missions. To sustain ISR collection, 
approximately 30 EUCOM personnel were deployed to Niger to support MQ-1 
missions. Additionally, EUCOM postured C-130 aircraft to provide 
strategic inter-theater and intra-theater airlift to AFRICOM, France, 
and other troop contributing nations from Europe and Africa.

    29. Senator Inhofe. General Breedlove, is our extensive support to 
the French in Mali being leveraged to increase our strategic access to 
bases, e.g. lily pad bases, in western Africa?
    General Breedlove. Respectfully request this question be directed 
at U.S. Africa Command (AFRICOM). EUCOM's role in supporting French 
operations in Mali was mainly support to AFRICOM's direct operational 
support to the French. The French military operations in Africa are 
providing both a great opportunity to improve our bilateral 
relationship with France and encouraging the kind of out-of-area 
capability and initiative that makes France such a valuable U.S. ally. 
France genuinely appreciates the support we provide and I am sure our 
combined activities will contribute to expanded access within the 
region.

    30. Senator Inhofe. General Breedlove, with the drawdown of forces 
in Afghanistan, do you anticipate that we will be able to get more ISR 
support into Africa given the large number of terrorist threats, such 
as the Lord's Resistance Army and Joseph Kony, al Qaeda in the Islamic 
Maghreb, and al Shabaab?
    General Breedlove. I respectfully request this question be directed 
to the U.S. Africa Command.

                              afghanistan
    31. Senator Inhofe. General Breedlove, what key lessons do you 
think we must learn from the precipitous draw-down of U.S. troops from 
Iraq that can be applied to our draw-down in Afghanistan?
    General Breedlove. Logistically, the drawdown in Afghanistan 
presents a different set of challenges than the drawdown in Iraq. While 
the Iraq drawdown was aided by seaport access and several air hubs, the 
drawdown in Afghanistan will rely more upon land and air transport. I 
will work with the alliance to synchronize our several--national 
redeployment efforts to achieve all available efficiencies--in some 
cases, finding economies and savings together that we could not achieve 
separately.
    ISAF's primary task has changed from leading a population-centric 
counter-insurgency campaign to providing Security Force Assistance to 
the ANSF, as they assume the lead for providing their national 
security. The key missions of our post-2014 military presence will be 
focused on training, advising, and assisting ANSF; targeting 
counterterrorism missions against al Qaeda and its affiliates; and 
protecting U.S. forces and citizens.

    32. Senator Inhofe. General Breedlove, what key capabilities must 
we maintain in post-2014 Afghanistan?
    General Breedlove. Ultimately, Afghans must be able to secure and 
stabilize their country themselves. Our objective is to develop the 
capability for Afghans to assume these tasks. Achieving this objective 
requires a comprehensive program which trains, mentors and advises the 
ANSF through army and police advisory teams and within the NATO 
Training Mission-Afghanistan (NTM-A). NTM-A brings together both NATO 
and national training efforts to develop professional, capable and 
self-sustaining ANSF.
    In parallel with the training and mentoring efforts, ISAF troops 
are implementing a phased process to facilitate the transfer of full 
security responsibility to Afghan security forces as their capabilities 
improve, in keeping with the end of 2014 transition timeline.
    The training, advising, and assisting of the ANSF will continue 
after transition is complete at the end of 2014, when the ISAF mission 
will end.
    NATO has agreed to lead a post-2014 mission focused on continued 
support to the development of ANSF capacity. Allies and my NATO 
military staff are currently going through an in-depth review to 
determine what assets and capabilities will be required post-2014 to 
maintain the momentum of ANSF development and sustain the progress we 
have already made. We have not yet reached the point of formally 
defining the number of forces and required capabilities.

    33. Senator Inhofe. General Breedlove, NATO has been transformed by 
the expeditionary requirements in Afghanistan. After 2014, what will be 
the driving force to maintain those hard-earned skills and further 
evolve NATO to be able to meet 21st century threats?
    General Breedlove. Alliance forces, along with many non-NATO 
contributing nations in Afghanistan, have created a synergy of effort 
and network of lasting partnerships that will benefit our Nation and 
the alliance long after these deployed forces return home. Lessons 
learned from 20 years of NATO-led operations, with integrated, 
multinational command structures and forces of the many nations working 
alongside each other day after day, have both enhanced our military 
interoperability and strengthened the mutual confidence of our forces.
    After 2014, NATO is expected to shift its emphasis from operational 
engagement to operational preparedness. This means NATO will need to 
remain capable of performing its core tasks--described in its Strategic 
Concept and of maintaining its forces at a high level of readiness. To 
help achieve this, allied leaders have set out the goal of ``NATO 
Forces 2020'': modern, tightly connected forces that are properly 
equipped, trained, exercised and led.
    The Connected Forces Initiative (CFI) will help ensure that allies 
can communicate effectively, practice together, and validate and 
certify their ability to do so. The main requirements of CFI are to 
maintain NATO's readiness and combat effectiveness through expanded 
education and training, increased exercises, and better use of 
technology.
    NATO exercises will cover the full spectrum of intensity, promote 
interoperability and also compensate for the reduced operational 
experience of forces working together. NATO will build a robust 
exercise and training program that will underpin the alliance's 
interoperability in the future. High-intensity, large-scale exercises 
will provide the demanding scenarios necessary for NATO to retain its 
``fighting edge.'' Defense Ministers in February 2013 agreed that the 
alliance should hold a major live exercise in 2015 and will draw up a 
comprehensive program of training and exercises for the period 2015-
2020.
    The NATO Response Force will also play an important role in this 
context by providing a vehicle both to demonstrate operational 
readiness and serve as a ``test bed'' for alliance transformation. It 
provides a collective approach with a ready, integrated, deployable, 
effective and efficient military response, through which to show 
alliance resolve, solidarity, and commitment.

              strategic benefits of engagement with europe
    34. Senator Inhofe. General Breedlove, as I said in my opening 
statement, if recent history is any indicator, any operations we do in 
Northern Africa and the Middle East will be with Europe and from 
Europe. Strategic access to key geostrategic terrain as we saw in 
Libya, and interoperability as we see by the almost 30,000 European 
troops in Afghanistan, seem compelling reasons to remain engaged in 
Europe despite today's significant resource constraints. Why do you 
think we should remain engaged with Europe in light of today's severe 
budget cuts?
    General Breedlove. Our Nation must take care--even as we grapple 
with significant economic challenges and chart the necessary strategic 
reorientations--to protect, preserve, and continue evolving our 
extraordinary partnership with Europe. There are five salient reasons 
for this. First, Europe is home to most of the world's progressive 
democracies; nations with which we share the fundamental values that 
are a critical element in building effective coalitions. Second, with a 
GDP of $19 trillion--a quarter of the world's economy--and 
approximately $4 trillion in annual trade with the United States, 
Europe is key to the U.S. and global economies. Third, the European 
theater remains critical geostrategic terrain, providing the United 
States with the global access it needs to conduct worldwide operations 
and crisis response. Fourth, Europe is the backdrop for NATO, history's 
most successful and effective alliance, and a vital partner for dealing 
with the challenges of the 21st century. Fifth, Europe is today a 
security exporter, possessing many of the most highly trained and 
technologically advanced militaries in the world. No other region 
possesses a comparable pool of capable and willing partners able to 
conduct global operations with the United States.
    The United States must remain engaged with Europe because it is a 
vital enabler for U.S. global reach. The coming decade will be a 
dynamic one, highlighted by increasing regional challenges and 
strategically overall U.S. primacy in global affairs would be 
diminished if we do not remain engaged with Europe. By remaining 
engaged, EUCOM will maintain relationships and expeditionary 
capabilities within European militaries that will continue to directly 
benefit American strategic interests and successfully defend the 
Homeland forward.

    35. Senator Inhofe. General Breedlove, what is the impact of a 
smaller footprint and reduced resources in Europe on U.S. influence 
within the NATO organization?
    General Breedlove. Despite a smaller footprint and reduced 
resources, the United States remains the leader of the alliance. Our 
commitment to a strategic partnership with Europe and global 
capabilities still provide the unquestioned guarantees of North 
American and European security. However, preserving U.S. influence 
while NATO resets in a post-ISAF environment will require a careful and 
nuanced approach. In particular, consistency in our messaging and our 
actions will be an important means of ensuring we retain the trust and 
confidence of our European allies and partners. This is especially true 
with regard to the posture of U.S. forces in Europe, our pledge to 
reinvigorate our participation in the NATO Response Force and rotate 
battalion task forces to Europe, and our engagement activities with 
allies and partners. In addition, we will have to find efficiencies 
through closer collaboration with NATO. For instance, we will have to 
look for opportunities to do national training exercises in a multi-
national NATO framework and better harmonize our bilateral assistance 
with NATO efforts. Such measures can ensure that the US retains its 
leadership of NATO even with reduced resources in Europe.

    36. Senator Inhofe. General Breedlove, as the percentage of GDP 
that NATO nations are spending on defense drops from the goal of 2 
percent towards an inadequate 1 percent, how do we ensure that Europe 
will continue to shoulder its share of the global security burden?
    General Breedlove. While the European economic crisis continues to 
drive reduced military spending and force structure decisions among 
European nations, collectively, our European allies and partners still 
represent the second largest defense spending block ($280 billion) in 
the world (NATO 13 April 2012 Press Release ``Financial and Economic 
Data Relating to NATO Defence'' (PR/CP(2012)047-REV1)--ahead of China 
($130 billion/year) and Russia ($64 billion) (Stockholm International 
Peace Research Institute, Military Expenditure Database, http://
milexdata.sipri.org). So, while it is true that governments continue to 
make inwardly focused decisions on defense spending--in many cases not 
achieving the self-imposed NATO 2 percent GDP benchmark--our European 
allies are still investing in defense, focused on contributing to NATO 
and preserving the expeditionary capabilities and interoperability that 
have been developed over the past decade of combat operations with the 
United States. However, it is of concern that the fiscal environment is 
driving key allies to undertake decisions that will have a material 
impact on their capabilities, forces, and ability to conduct future 
contingency operations. Given the persistent economic challenges and 
forecasts, our critical European allies and partners will continue to 
grapple in the coming years to maintain a full suite of interoperable 
capabilities and a sufficiently-sized, ready force to participate in 
global contingency operations. We must continue to engage, train, and 
exercise routinely with these allies and partners to influence and 
assist them in maintaining readiness and interoperability with U.S. 
forces. One of the ways we can ensure our allies and partners will be 
able to continue to shoulder their share of the global security burden 
is for U.S. forces to participate in combined and joint exercises, and 
utilize the U.S. Joint Multinational Training Command (Grafenwoehr and 
Hohenfels), which will build and sustain interoperability among 
themselves and with U.S. forces.

    37. Senator Inhofe. General Breedlove, is the 1206 security 
assistance program still useful to EUCOM and your current mission?
    General Breedlove. Yes. The section 1206 program remains essential 
to EUCOM's ability to support a successful ISAF transition in 2014 and 
the post-ISAF train, advise, and assist mission in Afghanistan. 
European allies and partners remain committed to deploying forces to 
Afghanistan in 2014 and beyond. The 1206 program enables us to provide 
willing allies (the NATO accessions of 1999 and 2004) and partners with 
the specialized equipment and training they need to operate safely and 
effectively in Afghanistan.

    38. Senator Inhofe. General Breedlove, what tangible results have 
you seen from the significant 1206 investment made over the years?
    General Breedlove. The investment of 1206 funding in Europe has 
produced significant results in the form of deployments of additional 
ally/partner nation forces to Afghanistan and enhancements in the 
operational effectiveness, safety, and interoperability of those 
deployed forces. Examples of supported deployments include nine 
battalion rotations of Georgian forces to RC-Southwest to support U.S. 
Marine Corps' forces; Security Force Assistance Teams from Albania and 
Croatia training ANSF; and contributions of Special Operations Forces 
from Poland, Romania, Hungary, and the Czech Republic. Perhaps most 
importantly, the 1206 program has built an enduring NATO-interoperable, 
expeditionary capability among willing allies and partners that will be 
available to support future operations.

                       nuclear weapons reductions
    39. Senator Inhofe. General Breedlove, prospects for cooperation 
with Russia on missile defense seem dim. In your opinion, what will it 
take for Russia to cooperate with the United States on missile defense?
    General Breedlove. The Russian distrust of the EPAA stems from 
their perception that EPAA is a threat to their strategic nuclear 
deterrent force. In my opinion, our best chance for success is engaging 
in information sharing and greater transparency measures so that they 
better understand our approach.

    40. Senator Inhofe. General Breedlove, will the administration 
reduce nuclear weapons in Europe due to budget cuts or as a concession 
to Russia for a nuclear arms reduction deal?
    General Breedlove. NATO and the United States have repeatedly 
affirmed that U.S. nuclear weapons based in Europe are vital to 
alliance security and cohesion. The NATO Deterrence and Defense Posture 
Review, released last year and briefed at the Chicago Summit, states 
that nuclear weapons are a core component of NATO's overall 
capabilities for deterrence and defense alongside conventional and 
missile defense forces. The report also states that as long as nuclear 
weapons exist, NATO will remain a nuclear alliance. Until the President 
and NATO both agree on reducing or removing U.S nuclear weapons from 
Europe, they will remain based there.

    41. Senator Inhofe. General Breedlove, what is your assessment of 
how NATO and the Europeans would react to reductions of nuclear weapons 
in Europe with or without reciprocal Russian actions?
    General Breedlove. My assessment is that they would not react 
favorably to reductions not agreed to by NATO. The United States and 
NATO currently agree that U.S. nuclear weapons are a core component of 
NATO's capabilities for deterrence and defense. Without consultation 
with and concurrence from NATO on reductions of U.S. nuclear weapons 
based in Europe, they will remain based there at current strength.

    42. Senator Inhofe. General Breedlove, the administration said it 
seeks to reduce tactical nuclear weapons in any future arms discussions 
with Russia, but Russia has established the condition that all U.S. 
tactical nuclear weapons must be removed from Europe. What is your 
position on whether the United States can or should remove tactical 
nuclear weapons from Europe in exchange for reductions in Russian 
weapons?
    General Breedlove. We support the administration's policy of basing 
tactical nuclear weapons in Europe in support of NATO and will continue 
to support that policy until directed otherwise by the President. 
Negotiations with Russia and/or NATO to remove U.S. tactical nuclear 
weapons from Europe are outside our purview.

    43. Senator Inhofe. General Breedlove, what is NATO's position?
    General Breedlove. (Please see response to question #41). The 
Strategic Concept reconfirmed that as long as there are nuclear weapons 
in the world, NATO will remain a nuclear alliance. Deterrence, based on 
an appropriate mix of nuclear and conventional capabilities, remains a 
core element of NATO's strategy.
    The Deterrence and Defense Posture Review of May 2012 has shown 
that the alliance's nuclear force posture currently meets the criteria 
for an effective deterrence and defense posture.
    NATO's reduced reliance on nuclear forces has been manifested in 
steady and very significant reductions in the number of systems, 
overall weapon numbers and readiness levels since the end of the Cold 
War.
    If there were to be a reduction in nuclear forces, allies agree 
that the North Atlantic Council (NAC) will task the appropriate 
committees to develop concepts that allow NATO to reduce its reliance 
on non-strategic nuclear weapons based in Europe. Additionally, the NAC 
would delineate what NATO would expect to see in the way or reciprocal 
Russian actions to allow for significant reductions in forward-based 
non-strategic nuclear weapons assigned to NATO.
    The allies look forward to continuing to develop and exchange 
transparency and confidence building ideas with the Russia Federation 
in the NATO-Russia Council, with the goal of developing detailed 
proposals on and increasing mutual understanding of NATO's and Russia's 
non-strategic nuclear force postures in Europe. NATO is prepared to 
consider further reducing its requirement for non-strategic nuclear 
weapons assigned to the alliance in the context of reciprocal steps by 
Russia.
    In addition, allies support and encourage the United States and the 
Russian Federation to continue their mutual efforts to promote 
strategic stability, enhance transparency, and further reduce their 
nuclear weapons.

    44. Senator Inhofe. General Breedlove, has your command, or any 
other component of the U.S. Government that you know of, examined the 
feasibility of verifying Russian compliance with an agreement to reduce 
tactical nuclear weapons?
    General Breedlove. Not that I am aware of. We welcome continued 
efforts to secure an agreement with the Russian Federation that would 
increase transparency on the size and composition of its tactical 
nuclear arsenal. The administration is working to initiate, in 
consultation with NATO allies, negotiations with the Russian Federation 
on an agreement to secure and reduce tactical nuclear weapon stockpiles 
of the United States and the Russian Federation in a verifiable manner.

                        article 60 modifications
    45. Senator Inhofe. General Breedlove, commanders in the military 
are given great responsibility, literally over life and death. 
Decisions they make send men and women into battle where they may die 
or be severely wounded. This special trust and confidence is given to 
no other position in our Government. In line with this responsibility, 
commanders are given the autonomy to discipline, train, and reward 
their units so that they can establish a cohesive, mission ready unit 
capable of fighting and winning the Nation's wars. While we trust you 
with our sons' and daughters' lives, the proposed modifications to 
Article 60 of the Uniform Code of Military Justice (UCMJ) seem to 
suggest that we do not trust your discretion when it comes to UCMJ 
offenses. Do you, as a commander, consider the UCMJ as it is currently 
structured, to be a viable tool to help you maintain and enhance the 
cohesiveness and fighting capabilities of your combat units?
    General Breedlove. Yes. I believe the UCMJ, as currently 
structured, provides a tried and true military justice system that 
works fairly, ensures due process, maintains good order and discipline, 
and is accountable on and off the battlefield.
    The independent authority of the commander to choose a particular 
course of action and/or disposition is balanced against a deliberate 
and robust procedural, clemency and appellate framework that provides 
an accused or convicted servicemember maximum due process rights. The 
comprehensive range of punitive options provides an effective deterrent 
against the commission of criminal misconduct, which strengthens unit 
morale, cohesiveness, and discipline. Current Service policies assist 
victims and witnesses through the military justice process to ensure 
all members are treated fairly and appropriately.
    The military justice system operates effectively while maintaining 
the confidence of the force. Of course, part of the trust and 
confidence in our system is the fact that there is ongoing scrutiny and 
periodic updates to reflect our changing law and military structure.

    46. Senator Inhofe. General Breedlove, have you seen any evidence 
that commanders are abusing their discretion as the convening authority 
to adjust sentencing?
    General Breedlove. I have seen no evidence that commanders are 
abusing their discretion as convening authorities to adjust sentencing. 
In my experience, commanders take this responsibility very seriously.
    The fact that I am not aware of any abuse of discretion by 
convening authorities in adjusting sentencing does not mean there is no 
benefit in the Department's current scrutiny of the process. In fact, 
it is actions such as the Secretary's current review of sentencing 
authorities and the Department's record of making changes when 
warranted that ensures the continued trust in our laws.

    47. Senator Inhofe. General Breedlove, the Secretary of Defense has 
announced that he intends to recommend changes to the UCMJ. How would 
the proposed changes to the UCMJ impact your effectiveness as a 
commander?
    General Breedlove. I am aware of and appreciate the Secretary of 
Defense's open mind and continued close scrutiny to maintain the value 
of the UCMJ as the most effective, fair, and protective military 
justice system.
    I believe that any change or limitation in the authority or 
discretion of a convening authority requires careful thought to avoid 
unintended consequences to the effective administration of military 
justice. At a minimum, the fair and efficient administration of 
military justice requires convening authorities to retain the ability 
to conduct pretrial negotiations, and where appropriate, enter into 
pretrial agreements that provide limitations on adjudged punishments in 
exchange for guilty pleas.
    The UCMJ is one of the things that makes the U.S. military great. I 
believe the intent of the Secretary's changes is, in part, to preserve 
the fairness, transparency, and appropriateness of convening authority 
actions. This is the very heart of the public trust in this system.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                                benghazi
    48. Senator Chambliss. General Breedlove, the attack in Benghazi, 
Libya, on September 11, 2012, highlighted several failures in our 
Nation's ability to respond effectively and timely to situations that 
threaten the lives of our citizens and interests within the region. You 
had command authority over the EUCOM-assigned air forces tasked with 
supporting the U.S. Africa Command (AFRICOM) area of responsibility. 
Could you describe in detail, the timeline and sequence of events for 
U.S. Air Forces, Europe in response to the Benghazi attack that 
resulted in the deaths of four Americans, to include U.S. Ambassador 
Chris Stevens?
    General Breedlove. The timeline below reflects the response to the 
Benghazi incident from the air component perspective. The timeline 
includes the U.S. Air Forces in Europe and the U.S. Air Forces Africa 
response from the time of the actual Benghazi incident.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    49. Senator Chambliss. General Breedlove, if confirmed, what 
changes to force structure and alert posture in Europe are necessary to 
respond more effectively to a future Benghazi-like event?
    General Breedlove. I am satisfied with EUCOM's actions with regard 
to our alert forces post-Benghazi. I intend to continue the ongoing 
efforts to adapt and refine EUCOM forces and alert postures which will 
enable us to effectively and expeditiously respond to the increasingly 
dangerous global security atmosphere characterized as the ``new 
normal''.
    In the last 6 months, EUCOM has worked aggressively to provide 
scalable, rapidly deployable, special operations and security forces to 
protect and preserve U.S. personnel and facilities in the event of 
regional unrest. These forces maintain sufficient depth and flexibility 
to deliver a variety of pre- and post-crisis response options in both 
the EUCOM and AFRICOM areas of responsibility (AORs). EUCOM coordinates 
weekly with the Joint Staff and AFRICOM to evaluate potential 
indications and warnings, and adjusts force postures if required. To 
date, EUCOM has modified force structure and alert posture 14 times in 
response to changing strategic events.
    Currently, EUCOM continues its efforts to transform the post-
Benghazi response force construct into a flexible and scalable set of 
options. We continue to provide basing and access to AFRICOM response 
forces, and we are significantly increasing those capabilities within 
our theater. EUCOM recently coordinated with Spain to host U.S. Marine 
Corps forces to support AFRICOM crisis response missions, and we are 
already receiving the first wave of marines. We are in the process of 
transferring additional security teams and combat enablers to AFRICOM 
before 01 June 2013. EUCOM's U.S. Army component has developed a 
scalable contingency force with robust augmentation capabilities for 
rapid deployment anywhere in the EUCOM theater. This new contingency 
response force will be ready for employment prior to 01 June 2013.
    As we look to the future, EUCOM will continue to collaborate with 
the Joint Staff, adjacent combatant commands, and U.S. Government 
agencies to review threats, intelligence products, and other 
indications/warnings that would potentially require crisis response 
forces. We will continue to mitigate risk by maintaining adaptive force 
structure and alert posture within our own forces, and request 
assistance where required. Finally, we will continue our efforts to 
build and preserve existing strategic partnerships which are vital in 
providing basing and access. These efforts are crucial to facilitating 
rapid response of U.S. forces and enablers.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                              russia reset
    50. Senator Ayotte. General Breedlove, is the Putin Government in 
full compliance with all existing arms control agreements with the 
United States?
    General Breedlove. Since EUCOM does not participate in the 
verification process for arms control treaties, I would refer you to 
the President's annual report, submitted through the Department of 
State, on ``Adherence to and Compliance with Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments'' required 
by section 403 of the Arms Control and Disarmament Act, as amended (22 
U.S.C 2593a).

                           sanctions on iran
    51. Senator Ayotte. General Breedlove, would you agree that Iran's 
missile development program and effort to acquire a nuclear weapons 
capability threaten not only U.S. national security, but also the 
national security of our allies in Israel and Europe?
    General Breedlove. I do agree with that assessment.

    52. Senator Ayotte. General Breedlove, do you share President 
Obama's assessment that U.S. and international sanctions should be 
utilized to the fullest extent to persuade Iran to halt its nuclear 
weapons program?
    General Breedlove. I do.

    53. Senator Ayotte. General Breedlove, the United States has 
implemented full sanctions against Iran Air and Mahan Air, but the 
European Commission has not implemented full sanctions. These airlines 
have facilitated the illicit activities of the Islamic Revolutionary 
Guard Corps (IRGC) through their transport of IRGC operatives, arms 
shipments, and funds. Additionally, these two airlines have ferried 
weapons from Iran to Bashar al Assad's regime in Syria. These shipments 
have enabled Assad to continue his slaughter of the Syrian people. Are 
you aware of the activities of Iran Air and Mahan Air?
    General Breedlove. I am aware that in October 2011, the U.S. 
Department of Treasury designated the Iranian commercial airline Mahan 
Air as a specially designated terrorist entity pursuant to E.O. 13224 
for providing financial, material, and technological support to the 
Islamic Revolutionary Guard Corps-Qods Force (IRGC-QF). IRGC-QF uses 
Mahan Air to ship arms, transfer funds, and ferry personnel. Mahan Air 
also has provided transportation services to Lebanese Hezbollah, 
transporting personnel, weapons, and goods on behalf of Hezbollah.
    I am also aware that Iran Air was designated in June 2011 pursuant 
to E.O. 13382 for providing support and services to Iran's Ministry of 
Defense Armed Forces Logistics, Iran's Aerospace Industries 
Organization, and the IRGC. Iran Air has transported rockets and 
missiles via passenger aircraft, and IRGC officers occasionally take 
control of Iran Air flights carrying sensitive IRGC-related cargo.
    In September 2012, Treasury identified as blocked property 117 
aircraft operated by Iran Air, Mahan Air, or Yas Air (another 
designated Iranian cargo airline) to disrupt the flow of weapons and 
communications equipment to the Syrian regime. Iran has used Iran Air 
and Mahan Air flights between Tehran and Damascus to send military and 
crowd control equipment to the Syrian regime, in coordination with 
Lebanese Hizballah. Iran has used deceptive measures when shipping 
illicit materials to Syria, by using a combination of passenger and 
cargo flights and declaring illicit cargo as humanitarian and other 
licit goods.
    The EU has not implemented full sanctions on Iran Air or Mahan Air, 
but many Western European airports refuse Iran Air refueling services, 
forcing Iran Air to terminate several European routes.

    54. Senator Ayotte. General Breedlove, are you aware that some of 
the international destinations of these airlines include European 
cities?
    General Breedlove. Yes. Although Iran Air has terminated several 
European routes due to some Western European airports refusing 
refueling services, I am aware that as of April 2013, Iran Air still 
flies to European destinations in Austria, Azerbaijan, Denmark, France, 
Italy, Germany, Netherlands, Sweden, Turkey, and the UK. I am also 
aware that Mahan Air still has routes to European destinations in 
Cyprus, Germany, and Turkey.

    55. Senator Ayotte. General Breedlove, if confirmed, will you work 
with the State Department to encourage our European allies to increase 
even further their sanctions against Iran?
    General Breedlove. I will. At the same time, I will make sure that 
I am supporting the State Department's lead and remaining strictly 
within my role as a military leader.

    56. Senator Ayotte. General Breedlove, will you look specifically 
at this issue related to Iran Air and Mahan Air?
    General Breedlove. I will look specifically at Iran and Mahan Air, 
and will continue EUCOM engagement with U.S. intelligence and 
interagency partners on this issue, to monitor the illicit activities 
of Iran Air and Mahan Air as well as other Iranian airlines that 
facilitate Iran's illicit activities.

                value of u.s. military forces in europe
    57. Senator Ayotte. General Breedlove, in light of the rebalance to 
Asia and our Nation's budget crisis, how would you respond to those who 
argue that the United States can't afford to maintain a significant 
U.S. military presence in Europe and should dramatically reduce or even 
eliminate the U.S. military presence there?
    General Breedlove. We recognize the challenges of the fiscal 
environment and, in accordance with the Defense Strategic Guidance, 
continue to consolidate our installations and seek additional 
efficiencies in U.S. overseas posture while maintaining the necessary 
capacity to meet our mission requirements.
    Why Europe? First, Europe is home to most of the world's liberal 
democracies, with which we share fundamental values, a critical element 
to building coalitions. Second, Europe's importance to the U.S. and 
global economy cannot be overstated. Its $19.2 trillion total gross 
domestic product accounts for approximately 25 percent of the global 
economy with $3.9 trillion in annual trade between the United States 
and Europe. Third, the European theater represents critical strategic 
terrain, providing the global access needed for rapid crisis response 
by four U.S. combatant commanders. Fourth, the EUCOM theater is home to 
NATO, history's most successful alliance and essential to our ability 
to meet the challenges of the 21st century. Fifth, Europe is a security 
provider vice consumer, contributing over 50,000 personnel to NATO and 
U.N. operations worldwide and spending approximately $280 billion on 
defense (second only to the United States and well ahead of China and 
Russia). No other region possesses a comparable pool of willing and 
capable allies and partners for the United States for conducting global 
operations.
    We will continue to advocate for a deliberate and balanced approach 
to posture in Europe to ensure that future changes meet minimum 
requirements to conduct U.S. contingency operations, support U.S. 
global strategic access, and meet our NATO commitments.

    58. Senator Ayotte. General Breedlove, from the perspective of U.S. 
interests, what is the value of retaining a significant U.S. military 
presence in Europe?
    General Breedlove. DOD's strategic approach to defense posture is 
to maintain a forward posture that promotes U.S. strategic interests by 
being either essential to U.S. security, or providing geopolitical 
advantages, such as stronger bilateral or multilateral political, 
economic, or cultural ties. This inclination to maintain a forward 
presence is further supported by the following principles:

    (1)  First, in an era of resource constraints, the United States 
cannot effectively manage global security challenges on its own. The 
presence of U.S. military forces overseas can be a powerful catalyst 
for promoting multilateral approaches and regional security 
architectures that serve both U.S. and partner states' interests.
    (2)  Second, the long-term presence of U.S. forces abroad reassures 
allies and partners of our commitment to mutual security relationships, 
generates enduring trust and goodwill with host nations, and increases 
regional and cultural expertise in the force. The United States cannot 
simply ``surge'' trust and relationships on demand.
    (3)  Third, our defense posture must balance the benefits of an 
overseas presence that assures allies and partners of our commitments, 
with the need for flexibility to respond to contingencies, emerging 
threats, and global security needs in distant theaters. These are not 
mutually exclusive aims. In fact, reducing U.S. presence in a region to 
increase flexibility for global deployments may have a perverse effect; 
it may weaken U.S. relationships with host nations and lessen their 
willingness to receive surge U.S. forces during a crisis.

    Forces stationed overseas provide greater utility by `doing' almost 
everything CONUS based forces `do' except contribute to a local 
community's economic viability. However, these overseas forces also 
demonstrate U.S. commitment to our allies; assure, deter, and dissuade; 
provide increased flexibility and responsiveness; enhance U.S. access 
into and through the European theater; help justify the U.S. leadership 
role in NATO; provide multi-national training opportunities; offer 
exposure to and awareness of culture differences; and reduce stress on 
the rotational force by being on-station.

                                 turkey
    59. Senator Ayotte. General Breedlove, how do you assess Turkey's 
role in NATO?
    General Breedlove. Turkey, with the second largest body of military 
manpower, after that of the United States, has been a steadfast ally 
and member of NATO since 1952. Turkey has been a major provider of 
forces and capabilities for NATO-led operations and has made 
substantial contributions to the NATO Response Force.
    Its strategic geographic position on the alliance's southern flank 
supports NATO interests in the Black Sea and Eastern Mediterranean 
regions. In addition to access to sites for forward deployment in 
support of U.S. and alliance operations, Turkey has hosted a variety of 
NATO military headquarters since 1952. Today, it is host to the only 
Land Component headquarters in NATO's integrated military Command 
Structure in Izmir. Turkey, additionally, serves as the framework 
nation for a NATO Rapid Deployable Corps (NRDC) headquarters in 
Istanbul, which could be deployed on short notice in support of 
alliance operations. Turkey sponsors a NATO-accredited Center of 
Excellence for Defense against Terrorism in Ankara as well as a 
Partnership for Peace Training Center, which was established in an 
effort to contribute to the training and interoperability efforts of 
NATO's partner nations. Turkey is also host to an AN/TPY-2 early 
warning radar which is an essential component of Phase 1 of the EPAA to 
Missile Defense and an integral part of NATO's Missile Defense 
architecture. This radar serves as a U.S. contribution to NATO Missile 
Defense, as agreed at the 2010 Lisbon Summit.

    60. Senator Ayotte. General Breedlove, what has been Turkey's role 
in Afghanistan?
    General Breedlove. In the words of William Holbrooke at the NATO 
Defense Ministers meeting, ``I can think of no other country in the 
ISAF alliance that has a role that is more important than Turkey's in 
terms of operations in Afghanistan.'' Today, Turkey has a wide ranging 
and critical role in Afghanistan. This is in part due to the rich and 
enduring relationship that Turkey established with the newly 
independent Afghanistan in 1921, and which Turkey has maintained 
largely uninterrupted for decades. Turkey clearly plays an enduring and 
critical part, both as a NATO member with a troop contingent in ISAF, 
but also in a broader sense through its engagement in international 
cooperation and development with projects focused on alleviating 
conditions which are systemic drivers of conflict. In these areas, 
Turkey has focused on education, health, and infrastructure development 
to improve the Afghan quality of life. Within the NATO context, Turkey 
has commanded Regional Command-Capital three times. Turkey has also 
provided the NATO Senior Civilian Representative in Afghanistan twice. 
It has contributed two Provincial Reconstruction teams and today has 
more than 1,000 troops deployed as part of ISAF. Turkey's role will 
remain critical in the future precisely because of its unique place in 
the Muslim world, its longstanding NATO membership, and its historical 
and sustained connection with Afghanistan.

    61. Senator Ayotte. General Breedlove, can you give me an update on 
our military relationship with Turkey?
    General Breedlove. The bilateral military relationship with Turkey 
is strong and coordination has improved over the last year. Events in 
Syria, though tragic, have provided opportunities for closer 
cooperation in prudent planning in which our military staffs are 
working directly with one another. Turkey has also been a valuable ally 
that has been instrumental in the expansion of the EPAA to missile 
defense by hosting a radar installation at Kurecik. Despite today's 
hard fiscal realities, both nations' militaries are preserving optimum 
opportunities for engagement and exchanges that help us to share common 
experiences and understand one another's priorities and objectives. 
Turkey's involvement in security cooperation is as deep as their 
operational commitment. Turkey spent $8.5 billion on Foreign Military 
Sales with the United States last year. This is a very high level of 
spending, but it is tending to decrease as Turkey establishes more 
domestic ability to produce its own equipment and weapons systems. 
Turkey manages International Military Education and Training (IMET) 
very efficiently, covering all expenses for their students and applying 
IMET funds only to the cost of educating their servicemembers. As a 
result, Turkey sent almost 400 students to American military schools 
and programs under the IMET program last year, more than any other ally 
or partner.

    62. Senator Ayotte. General Breedlove, what is the relationship 
between Turkey and Iran?
    General Breedlove. The Turkey-Iran relationship is multifaceted 
including issues of energy, trade, cultural, and politico-security 
cooperation. Iran is Turkey's second largest supplier of natural gas 
and Ankara relies on Iranian oil for its own consumption. Turkey and 
Iran also have a shared concern with Kurdish separatism--to include 
some limited intelligence sharing and joint security operations--and a 
common interest in avoiding another wide-scale military confrontation 
in the region. However, opposing positions on Syria (Ankara supports 
the Opposition while Tehran supports the Regime), Turkey hosting the 
NATO ballistic missile defense radar, and Turkey's adherence to U.S.-
European Union sanctions on Iran has resulted in some chilling of ties.

    63. Senator Ayotte. General Breedlove, how does Turkey view Iran's 
nuclear program?
    General Breedlove. Ankara continues its public support for Tehran's 
nuclear ambitions, which Turkey views as Iran's right to seek peaceful 
nuclear technology, and disagrees with sanctions as a means to force 
Tehran into compliance. However, Ankara has said it does not support 
Tehran possessing nuclear weapons. Ankara will use its influence with 
Tehran to pressure acceptance to the offer from the International 
Atomic Energy Agency (IAEA) under which Tehran would transfer all of 
its 20 percent-enriched uranium (which lies at the dividing line 
between low-enriched uranium and highly-enriched uranium) to a third 
country under IAEA custody. While Ankara has not officially adopted 
U.S.-European Union sanctions as policy, it recognizes its 
responsibility to comply.
    With respect to Turkey's reaction to a strike on Iranian nuclear 
facilities, analyses indicate that Turkey would react harshly against 
any military strike against Iranian nuclear facilities as Ankara has 
consistently opposed, both publicly and privately, military action 
against Iran. Officially, the Turkish military is also opposed to a 
strike, believing the consequences would be ``disastrous,'' and a broad 
consensus of Turkish intellectuals view a nuclear-armed Iran as the 
second worst outcome for the region, behind an attack against Iran's 
nuclear facilities.

    64. Senator Ayotte. General Breedlove, how do you believe Turkey 
would respond if Iran acquires a nuclear weapons capability?
    General Breedlove. Ankara has repeatedly stated it will not accept 
any neighbor possessing any weapons that it does not possess, 
particularly nuclear weaponry. However, Turkey is unlikely to take any 
unilateral action against Iran absent provocation. Ankara will likely 
demand proof of claims--beyond assertions by Israeli officials--that 
Tehran has developed nuclear weapons capability. If Ankara accepts the 
evidence as substantiating the claims, we expect the reaction to be 
measured based on Tehran's stance. At present, Turkey relies heavily on 
Iranian oil and gas for Turkey's own consumption; until there is a 
reliable and affordable alternative source, Ankara will be hard pressed 
to risk damaging energy relations.

        <bullet> Ankara would likely issue public statements condemning 
        the development of nuclear weapons and would highlight the 
        additional instability to the region.
        <bullet> Ankara would likely recall its Ambassador to Tehran 
        for ``consultations,'' but would not completely sever 
        diplomatic relations. Expelling Iranian officials is also a 
        possible option, but would likely only impact lower secretarial 
        positions.
        <bullet> Ankara would probably support a United Nations 
        Security Council/General Assembly resolution condemning the 
        activity.
        <bullet> Militarily, we would not expect to see any shifting of 
        Turkish forces or equipment to the shared border with Iran. 
        However, Ankara may seek additional NATO assurances of 
        protection given Turkey's hosting of the ballistic missile 
        defense radar.
        <bullet> Ankara may create its own sanctions targeting existing 
        bilateral relations such as limits on gold imports, or further 
        reducing imports of oil.

    65. Senator Ayotte. General Breedlove, what is your assessment of 
the current relationship between Turkey and Israel?
    General Breedlove. Turkish-Israeli relations have been strained for 
several years, declining since at least 2009 and stressed further 
following the deaths of nine Turkish citizens resulting from Israel's 
May 2010 interdiction of the Turkish M/V MAVI MARMARA. Since Israel's 
extension of the apology to Turkey for the incident, the two countries 
have entered into a discussion on the exchange of Defense Attaches. Any 
further progress at this time is likely to depend on the outcome of the 
reparations discussions. A draft compensation agreement was reached 
between the two countries on May 7, 2013, but a formal settlement has 
not yet been reached.

    66. Senator Ayotte. General Breedlove, how important is the 
bilateral relationship between Turkey and Israel?
    General Breedlove. A strong bilateral relationship between Turkey 
and Israel is key to advancing stability in the region and could 
provide more support for reinvigorating the Middle East peace process. 
For NATO and the United States, warm relations between Turkey and 
Israel also open the door for more NATO-Israel engagement-which Turkey 
has the ability to veto at the present time. From the U.S. perspective, 
a strong relationship between two allies removes roadblocks to 
advancing U.S. policies in the region and restarting some suspended 
multilateral military training opportunities.

                       european defense spending
    67. Senator Ayotte. General Breedlove, NATO countries agree to 
spend at least 2 percent of their GDP on defense. Yet, many European 
countries do not honor this commitment. For example, Spain has averaged 
1.1 percent defense spending over the last few years. How does this low 
defense spending in many European countries impact their military 
capabilities, as well as their ability to operate effectively with U.S. 
forces?
    General Breedlove. The continued European focus on austerity 
measures in response to the economic crisis has forced painful military 
spending decisions on many countries. Collectively, our European allies 
and partners still represent the second largest defense spending block 
($280 billion) in the world--ahead of China ($130 billion/year) and 
Russia ($64 billion). So, while it is true that governments continue 
to make tough choices on defense spending, our European allies are 
still contributing to NATO and attempting to preserve the expeditionary 
capabilities and interoperability that have been developed over the 
past decade of combat operations. Despite limited resourcing, European 
partners have made other significant contributions to security. In 
2010, seven European countries (United Kingdom (1.54 percent), France 
(1.36 percent), Iceland (1.22 percent), Germany (1.2 percent), 
Netherlands (1.17 percent), Denmark (1.15 percent), and Norway (1.04 
percent)) exceeded the U.S. funding contribution to U.N. peace 
operations by percent of GDP (which was .97 percent). I am concerned 
about the future military capabilities of our allies and partners given 
current levels of defense spending. A disproportionate amount of the 
spending cuts are from research, development and acquisition. These 
impacts not only effect current readiness, but potentially create a 
growing capability gap which will only be partially offset by NATO 
Smart Defense and European pooling and sharing efforts. This is a real 
challenge that will require serious effort and attention to address 
over the next few years. Since the Europeans represent our most 
reliable and capable security partners, it has a profound impact on our 
ability to address challenges as we also contend with reduced defense 
spending. In terms of European forces operating effectively alongside 
the United States, I am slightly more optimistic. While we will face a 
capability and capacity gap, there is real potential to maintain 
interoperable forces through the NATO Connected Forces Initiative. If 
we invest the time and resources to exercise and train with our allies 
and partners, I am confident we can preserve our hard won 
interoperability gains earned from 10 years of shared sacrifice in 
places like Afghanistan. The U.S. Joint Multinational Readiness Center 
(Hohenfels) and Joint Multinational Training Center (Grafenwoehr), and 
the U.S. Air Force Warrior Preparation Center (Miesenbach) will be 
crucial to this effort.

    68. Senator Ayotte. General Breedlove, what role could you play in 
encouraging our defense partners to devote more of their resources to 
defense spending?
    General Breedlove. In both my capacities as Supreme Allied 
Commander Europe and as Commander, EUCOM, I have a responsibility and 
active interest to ensure that our most reliable, capable and willing 
partners are prepared and ready to address the full range of 21st 
century challenges. The decision to devote more resources to defense 
spending will be a political one. But the role I can play, as part of a 
network of defense professionals, is to inform the political debate by 
identifying the requirements and the risks imposed by a failure to 
adequately invest in defense. Using both offices, I will engage with 
key leaders to argue for holding the line on defense spending, push 
within NATO to support the acquisition of critical capabilities, and 
ensure that the EUCOM steady state engagement and country cooperation 
plans focus on encouraging the appropriate resources are devoted to 
building the required capabilities. Additionally, as NATO nations begin 
to develop efficiencies through Smart Defense, it will be crucial to 
ensure these efficiencies are reinvested in defense and not simply used 
to justify further defense budget cuts. Finally, through key leader 
engagements, supporting regional approaches, and building and 
resourcing capabilities, I can help make the right arguments to support 
European Defense Chiefs and Ministers in order to sway political 
leaders to continue to invest in defense. In this capacity, I will also 
respectfully ask Members of Congress to continue to engage with 
European and Canadian counterparts through such mechanisms as the NATO 
Parliamentary Assembly to also help influence our partners and allies 
to make responsible decisions involving their security and examine 
alternative approaches to austerity in order to ensure their economic 
future.

                               personnel
    69. Senator Ayotte. General Breedlove, to what extent does EUCOM 
rely on DOD civilians and contractors to fulfill EUCOM's 
responsibilities?
    General Breedlove. Within the EUCOM headquarters, civilians and 
contractors make up nearly 55 percent of the assigned strength. They 
are an integral part of the command that provide invaluable 
contributions daily in support of the EUCOM mission.

    70. Senator Ayotte. General Breedlove, how has sequestration 
affected the civilian contractors and DOD civilians working at EUCOM, 
and how has that affected EUCOM's ability to perform its missions?
    General Breedlove. The effects of sequestration are many and are 
substantial. Currently, EUCOM has had to enforce a civilian hiring 
freeze which has severely hindered the command's ability to recruit and 
fill vacancies. Additionally, the command's ability to augment exercise 
and contingency operations with approving overtime for civilians and 
contractors has been eliminated. The effects throughout the command 
with respect to employee satisfaction and morale have also been 
significant as employees are distracted by the concern over stability, 
job security, and potential financial hardship.

    71. Senator Ayotte. General Breedlove, to what extent does EUCOM 
utilize personnel from its Reserve component to support EUCOM's work?
    General Breedlove. EUCOM currently has 1,066 Reserve component 
positions with reservists assigned. These personnel are mobilization 
assets who support EUCOM during their 2 weeks of Annual Training each 
year. Additionally, EUCOM augments the Active Duty staff with 
reservists on 1 year Active Duty orders. There are 135 Reserve 
component personnel at the EUCOM headquarters and the Joint Analysis 
Center on 1 year Active Duty orders.

    72. Senator Ayotte. General Breedlove, is the use of Reserve 
personnel the most cost efficient method to support surges in demand 
for personnel at EUCOM and to make up for temporary reductions in the 
civilian and contractor workforce at EUCOM, such as those caused by 
sequestration?
    General Breedlove. Reserve component personnel provide a valued 
resource in terms of experience and depth when augmenting the EUCOM 
staff during surge or contingency operations. Many Reserve component 
personnel have expertise currently not resident on the staff and are 
effective stop-gap measures for temporary surges and limited 
contingencies, or until Active component personnel can be obtained.

    73. Senator Ayotte. General Breedlove, is annual training in Europe 
for EUCOM reservists critical to maintaining their proficiency and 
ability to seamlessly integrate into EUCOM's staff?
    General Breedlove. Yes. The training value that our reservists 
receive when conducting Annual Training in Europe cannot be replicated 
in CONUS. Virtual means of staying ``connected'' across the Atlantic 
with the headquarters are useful tools--especially throughout the year, 
but by themselves do not provide the required level of proficiency in 
EUCOM HQs operations. Staff process training can only be fully 
addressed when in situ, making them fully capable in times of crises 
and support.

    74. Senator Ayotte. General Breedlove, will EUCOM continue to 
facilitate annual training in Europe for EUCOM reservists and utilize 
them as a cost-efficient means to cope with fluctuating personnel 
demands so that EUCOM can fulfill its vital national security-related 
missions?
    General Breedlove. EUCOM will continue to facilitate that training. 
Annual training in Europe for our reservists is an enabler for the 
command and provides a key capability that can be employed in 
contingency and surge operations.
    EUCOM will also continue to use reservists to meet its fluctuating 
personnel demands.
                                 ______
                                 
    [The nomination reference of Gen. Philip M. Breedlove, 
USAF, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     April 8, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Air Force 
to the grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    Gen. Philip M. Breedlove, USAF, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. Philip M. Breedlove, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Biographical Sketch of Gen. Philip M. Breedlove, USAF
    Gen. Philip M. Breedlove is Commander, U.S. Air Forces in Europe; 
Commander, U.S. Air Forces Africa; Commander, Air Component Command, 
Ramstein; and Director, Joint Air Power Competence Centre, Kalkar, 
Germany. He is responsible for Air Force activities, conducted through 
3rd Air Force, in an area of operations covering more than 19 million 
square miles. This area includes 105 countries in Europe, Africa, Asia 
and the Middle East, and the Arctic and Atlantic oceans, and possesses 
more than a quarter of the world's population and generates more than a 
quarter of the world's gross domestic product.
    General Breedlove was raised in Forest Park, GA, and was 
commissioned in 1977 as a distinguished graduate of Georgia Tech's ROTC 
program. He has been assigned to numerous operational, command and 
staff positions, and has completed nine overseas tours, including two 
remote tours. He has commanded a fighter squadron, an operations group, 
three fighter wings, and a numbered air force. Additionally, he has 
served as operations officer in the Pacific Command Division on the 
Joint Staff; executive officer to the Commander of Headquarters Air 
Combat Command; the senior military assistant to the Secretary of the 
Air Force; and Vice Director for Strategic Plans and Policy on the 
Joint Staff.
    Prior to assuming his current position, General Breedlove served 
Vice Chief of Staff of the U.S. Air Force, Washington, DC. As Vice 
Chief, he presided over the Air Staff and served as a member of the 
Joint Chiefs of Staff Requirements Oversight Council and Deputy 
Advisory Working Group. He assisted the Chief of Staff with organizing, 
training, and equipping of 680,000 Active Duty, Guard, Reserve and 
civilian forces serving in the United States and overseas. General 
Breedlove has flown combat missions in Operation Joint Forge/Joint 
Guardian. He is a command pilot with 3,500 flying hours, primarily in 
the F-16.

                                 ______
                                 
Education:
    1977 - Bachelor's degree in civil engineering, Georgia Institute of 
Technology.
    1982 - Distinguished graduate, Squadron Officer School, Maxwell Air 
Force Base (AFB), AL.
    1991 - Distinguished graduate, Air Command and Staff College, 
Maxwell Air Force Base, AL.
    1991 - Master of Science degree in aeronautical technology, Arizona 
State University.
    1995 - Master's degree in national security studies, National War 
College, Fort Lesley J. McNair, Washington, DC.
    2002 - Fellow, Massachusetts Institute of Technology Seminar XXI, 
Washington, DC.

Assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
March 1978......................  March 1979........  Student,
                                                       undergraduate
                                                       pilot training,
                                                       Williams AFB, AZ.
March 1979......................  August 1979.......  Pilot instructor
                                                       training,
                                                       Randolph AFB, TX.
August 1979.....................  January 1983......  T-37 instructor
                                                       pilot, evaluation
                                                       flight examiner
                                                       and runway
                                                       supervisory unit
                                                       controller,
                                                       Williams AFB, AZ.
January 1983....................  September 1983....  F-16 student
                                                       pilot, MacDill
                                                       AFB, FL.
September 1983..................  January 1985......  F-16 aircraft
                                                       commander and
                                                       instructor pilot,
                                                       614th Tactical
                                                       Fighter Squadron,
                                                       Torrejon AB,
                                                       Spain.
January 1985....................  March 1987........  Air liaison
                                                       officer, 602nd
                                                       Air Support
                                                       Operations Group,
                                                       Kitzingen AB,
                                                       West Germany.
March 1987......................  January 1988......  F-16 pilot, 526th
                                                       Tactical Fighter
                                                       Squadron,
                                                       Ramstein AB, West
                                                       Germany.
January 1988....................  August 1988.......  Chief of Flight
                                                       Safety, 316th Air
                                                       Division,
                                                       Ramstein AB, West
                                                       Germany.
August 1988.....................  August 1990.......  F-16 flight
                                                       commander, then
                                                       assistant
                                                       operations
                                                       officer, 512th
                                                       Tactical Fighter
                                                       Squadron,
                                                       Ramstein AB,
                                                       Germany.
August 1990.....................  July 1991.........  Student, Air
                                                       Command and Staff
                                                       College, Maxwell
                                                       AFB, AL.
July 1991.......................  May 1993..........  Chief of Air
                                                       Operations,
                                                       United Nations
                                                       Command and
                                                       Republic of Korea/
                                                       U.S. Combined
                                                       Forces Command,
                                                       Yongsan Army
                                                       Garrison, South
                                                       Korea.
May 1993........................  July 1994.........  Commander, 80th
                                                       Fighter Squadron,
                                                       Kunsan AB, South
                                                       Korea.
July 1994.......................  June 1995.........  Student, National
                                                       War College, Fort
                                                       Lesley J. McNair,
                                                       Washington, DC.
June 1995.......................  July 1997.........  Operations
                                                       officer, U.S.
                                                       Pacific Command
                                                       Division, Joint
                                                       Staff, the
                                                       Pentagon,
                                                       Washington, DC.
July 1997.......................  June 1999.........  Commander, 27th
                                                       Operations Group,
                                                       Cannon AFB, NM.
June 1999.......................  May 2000..........  Executive officer
                                                       to the Commander,
                                                       Headquarters Air
                                                       Combat Command,
                                                       Langley AFB, VA.
May 2000........................  May 2001..........  Commander, 8th
                                                       Fighter Wing,
                                                       Kunsan AB, South
                                                       Korea.
June 2001.......................  June 2002.........  Senior military
                                                       assistant to the
                                                       Secretary of the
                                                       Air Force,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC.
June 2002.......................  June 2004.........  Commander, 56th
                                                       Fighter Wing,
                                                       Luke AFB, AZ.
June 2004.......................  June 2005.........  Commander, 31st
                                                       Fighter Wing,
                                                       Aviano AB, Italy.
June 2005.......................  October 2006......  Vice Commander,
                                                       16th Air Force,
                                                       Ramstein AB,
                                                       Germany.
October 2006....................  July 2008.........  Vice Director for
                                                       Strategic Plans
                                                       and Policy, Joint
                                                       Staff, the
                                                       Pentagon,
                                                       Washington, DC.
July 2008.......................  August 2009.......  Commander, 3rd Air
                                                       Force, Ramstein
                                                       AB, Germany.
August 2009.....................  January 2011......  Deputy Chief of
                                                       Staff for
                                                       Operations, Plans
                                                       and Requirements,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC.
January 2011....................  July 2012.........  Vice Chief of
                                                       Staff of the U.S.
                                                       Air Force,
                                                       Washington, DC.
July 2012.......................  present...........  Commander, U.S.
                                                       Air Forces in
                                                       Europe;
                                                       Commander, U.S.
                                                       Air Forces in
                                                       Africa;
                                                       Commander, Air
                                                       Component
                                                       Command, Ramstein
                                                       Air Base,
                                                       Germany; and
                                                       Director, Joint
                                                       Air Power
                                                       Competency
                                                       Center, Ramstein.
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
July 1991.......................  May 1993..........  Chief of Air
                                                       Operations,
                                                       United Nations
                                                       Command and
                                                       Republic of Korea/
                                                       U.S. Combined
                                                       Forces Command,
                                                       Yongsan Army
                                                       Garrison, South
                                                       Korea, as a
                                                       major.
June 1995.......................  July 1997.........  Operations
                                                       officer, U.S.
                                                       Pacific Command
                                                       Division, Joint
                                                       Staff, the
                                                       Pentagon,
                                                       Washington, DC,
                                                       as a lieutenant
                                                       colonel.
October 2006....................  July 2008.........  Vice Director for
                                                       Strategic Plans
                                                       and Policy, Joint
                                                       Staff, the
                                                       Pentagon,
                                                       Washington, DC,
                                                       as a major
                                                       general.
------------------------------------------------------------------------


Flight information:
    Rating: Command pilot
    Flight hours: More than 3,500
    Aircraft flown: F-16, T-37, and C-21

Major awards and decorations:
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit with three oak leaf clusters
    Defense Meritorious Service Medal with two oak leaf clusters
    Meritorious Service Medal with three oak leaf clusters
    Aerial Achievement Medal

Effective dates of promotion:
    Second Lieutenant, June 1, 1977
    First Lieutenant, Dec. 10, 1979
    Captain, Dec. 10, 1981
    Major, Nov. 1, 1988
    Lieutenant Colonel, June 1, 1993
    Colonel, Jan. 1, 1998
    Brigadier General, Oct. 1, 2003
    Major General, June 23, 2006
    Lieutenant General, July 21, 2008
    General, Jan. 14, 2011
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Philip M. 
Breedlove, USAF, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Philip M. Breedlove.

    2. Position to which nominated:
    Commander, U.S. European Command Supreme Allied Commander, Europe.

    3. Date of nomination:
    April 8, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 21, 1955; Atlanta, GA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cynthia Sue Breedlove (maiden name: Thompson).

    7. Names and ages of children:
    Samantha Leigh Tromly, 26.
    Rebecca Nichole Breedlove, 23.
    Daniel Jesse Breedlove, 18.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    I have no advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed in the service record.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    I currently hold no positions as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, firm, partnership, or other business, enterprise, 
education, or other institution.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    I am a board member on the Advisory Board of the School of Civil 
and Environmental Engineering, Georgia Institute of Technology.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    I currently hold no scholarships, fellowships, honorary society 
memberships, or have received any other special recognition for 
outstanding service or achievements other than those listed on the 
service record.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    If confirmed, I agree to appear and testify upon request before any 
duly constituted committee of the Senate.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    I agree to provide my personal views, if asked, before any duly 
constituted committee of Congress even if my views differ from the 
administration in power.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Philip M. Breedlove.
    This 15th day of February, 2013.

    [The nomination of Gen. Philip M. Breedlove, USAF, was 
reported to the Senate by Chairman Levin on April 17, 2013, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on April 18, 2013.]


  NOMINATIONS OF GEN MARTIN E. DEMPSEY, USA, FOR REAPPOINTMENT TO THE 
 GRADE OF GENERAL AND REAPPOINTMENT AS CHAIRMAN OF THE JOINT CHIEFS OF 
 STAFF; AND ADM JAMES A. WINNEFELD, JR., USN, FOR REAPPOINTMENT TO THE 
GRADE OF ADMIRAL AND REAPPOINTMENT AS VICE CHAIRMAN OF THE JOINT CHIEFS 
                                OF STAFF

                              ----------                              


                        THURSDAY, JULY 18, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
McCaskill, Hagan, Shaheen, Gillibrand, Blumenthal, Donnelly, 
Kaine, King, Inhofe, McCain, Sessions, Chambliss, Wicker, 
Ayotte, and Graham.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Michael J. Kuiken, professional 
staff member; Gerald J. Leeling, general counsel; Mariah K. 
McNamara, special assistant to the staff director; William G.P. 
Monahan, counsel; Michael J. Noblet, professional staff member; 
Roy F. Phillips, professional staff member; Russell L. Shaffer, 
counsel; and William K. Sutey, professional staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director; Daniel C. Adams, minority associate counsel; 
Adam J. Barker, professional staff member; Steven M. Barney, 
minority counsel; William S. Castle, minority general counsel; 
Samantha L. Clark, minority associate counsel; Allen M. 
Edwards, professional staff member; Thomas W. Goffus, 
professional staff member; Ambrose R. Hock, professional staff 
member; Anthony J. Lazarski, professional staff member; Daniel 
A. Lerner, professional staff member; Lucian L. Niemeyer, 
professional staff member; and Robert M. Soofer, professional 
staff member.
    Staff assistants present: Lauren M. Gillis and Daniel J. 
Harder.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeff Fatora, assistant to Senator 
Nelson; Jason Rauch, assistant to Senator McCaskill; Brian 
Nagle, assistant to Senator Hagan; Mara Boggs, assistant to 
Senator Manchin; Patrick Day, assistant to Senator Shaheen; 
Moran Banai and Brooke Jamison, assistants to Senator 
Gillibrand; Ethan Saxon, assistant to Senator Blumenthal; Marta 
McLellan Ross, assistant to Senator Donnelly; Nick Ikeda, 
assistant to Senator Hirono; Karen Courington, assistant to 
Senator Kaine; Jim Catella and Steve Smith, assistants to 
Senator King; Christian Brose, assistant to Senator McCain; 
Lenwood Landrum, assistant to Senator Sessions; Todd Harmer, 
assistant to Senator Chambliss; Joseph Lai, assistant to 
Senator Wicker; Brad Bowman, assistant to Senator Ayotte; and 
Craig Abele, assistant to Senator Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets this morning to consider the 
nominations of General Martin Dempsey and Admiral James 
Winnefeld, both of whom have been nominated to continue in 
their current positions: General Dempsey as Chairman of the 
Joint Chiefs of Staff and Admiral Winnefeld as Vice Chairman of 
the Joint Chiefs of Staff. Thank you both for your service and 
for your willingness to continue to serve in these positions of 
huge responsibility.
    I would also like to welcome and to thank your family 
members, some of whom are with us here this morning. Our 
military families, as you well know, are a vital part of the 
overall success and well-being of our Armed Forces, and we 
appreciate greatly their unwavering support and their many 
sacrifices, usually during the course of long military careers. 
During your opening remarks, please feel free to reintroduce 
your family members to our committee.
    The foremost duty of the leadership positions to which 
General Dempsey and Admiral Winnefeld have been renominated is 
to ensure that our service men and women have what they need to 
win wars, to succeed in their missions, and to secure peace. 
Our nominees have carried out their duties with energy and with 
commitment. It is a testament to the quality of their service 
that the President has nominated them to continue in their 
positions.
    I have had frequent occasions to seek the views of General 
Dempsey and Admiral Winnefeld over the years in both public and 
private settings. Even on those few occasions when I have 
disagreed with their assessments and recommendations, I have 
found their positions to be thoughtful and well reasoned.
    If confirmed, our nominees will face a series of continuing 
challenges.
    In Syria, Assad is using airstrikes, missiles, helicopters, 
tanks, and artillery to attack the Syrian people. He is 
targeting civilians in residential neighborhoods, in 
marketplaces, in schools, and in places of worship. He has used 
chemical weapons against the insurgents. He is increasingly 
relying on foreign fighters from Iran and Hezbollah to sustain 
his grip on power. To date, his actions have killed more than 
100,000 Syrians, led more than a million to flee the country, 
forced more than 4 million more to become internally displaced, 
leveled entire villages and neighborhoods, and motivated the 
Syrian people to rise up against him.
    I look forward to hearing the nominees' views on the steps 
that might be taken to increase the military pressure on Assad 
in support of the administration's goal of convincing the Assad 
regime and its supporters, including Russia, that the current 
military momentum towards the regime cannot last in the face of 
a major insurgency that has the support of both the Syrian 
people and an international coalition and that a political 
settlement that transitions Syria to a post-Assad regime that 
is inclusive of and protective of all elements of the Syrian 
society is the only solution.
    In Afghanistan, while the campaign is on track to 
transition responsibility for the country's security from 
coalition forces to the Afghan security forces, and U.S. and 
coalition forces continue to draw down over the next year and a 
half, significant challenges remain to secure the hard-fought 
gains. Among those challenges is putting the U.S.-Afghanistan 
strategic partnership on a sound footing for the long term, 
including through the conclusion of a bilateral status of 
forces agreement to ensure that our troops have the legal 
protections necessary for any post-2014 U.S. military presence 
in Afghanistan. Recent statements by President Karzai have 
complicated negotiation of such an agreement, and I will be 
interested in what our witnesses have to say about the 
prospects for a successful negotiation, as well as what the 
status is of the efforts in Afghanistan militarily.
    In mid-March of this year, Secretary Hagel responded to 
North Korea's provocative behavior by announcing a series of 
steps to improve our Homeland missile defense capability, 
including the planned deployment of 14 additional ground-based 
interceptors in Alaska by 2014.
    On July 5, our ground-based midcourse defense system had a 
flight test failure. This test failure, along with an earlier 
failure, reinforces the need to pursue a ``fly-before-you-buy'' 
approach which demonstrates through realistic flight tests that 
the system will work as intended before deploying any 
additional inceptors. I would welcome our witnesses' comments 
on that issue as well.
    The National Defense Authorization Act that we will bring 
to the Senate floor includes provisions that give the Secretary 
of Defense greater flexibility to transfer detainees from 
Guantanamo Bay, Cuba (GTMO). I will be interested in our 
witnesses' views on these proposed changes in our defense 
authorization bill.
    Lastly, but far from leastly, we must confront the growing 
challenge of sequestration. All of the things that our military 
needs to do, responding to regional crises, maintaining 
readiness, training and equipping our forces, taking care of 
our servicemembers and their families, depend upon appropriate 
levels of funding. The damaging effect that sequestration is 
already having and will continue to have unless addressed, 
remedied, and reversed--that damaging effect on the readiness 
of our military must be addressed and addressed in a way that 
protects the vitality of our forces.
    It is against the backdrop of these and many more 
challenges, both foreign and domestic, that we consider these 
two very important nominations.
    Again, we welcome both of you today. We look forward to 
your testimony.
    I now call on Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. As I mentioned to 
you, we have another hearing simultaneously with this one, two 
floors up, so I will be going back and forth.
    Over the last 4 years, our military has suffered a steep 
and damaging drop in capabilities and readiness. This 
administration has cut nearly $600 billion already from the 
defense budget, reduced end strength by more than 100,000 
personnel, reduced the size of the naval fleet, and cut 
hundreds of Air Force combat aircraft. Training and reset 
accounts have been gutted and modernization programs are being 
starved of resources. On the horizon is the addition of $500 
billion in cuts if we are unable to find a solution for the 
sequestration, which you know, is kind of ridiculous. When you 
tell normal people that we have 18 percent of our budget is the 
military budget, and yet we are taking 50 percent of the cuts, 
it is totally unreasonable. It lets you know the priorities of 
this administration.
    The longer we allow our force to deteriorate, the harder 
and more expensive it will be to repair and rebuild.
    Earlier this year, Chairman Levin and I sent a letter to 
Secretary Hagel requesting a detailed plan on how the 
Department would allocate the additional $52 billion in 
sequester cuts slated for fiscal year 2014. The response we 
received was woefully light on details but made clear that 
further cuts in fiscal year 2014 will significantly amplify the 
pain our military is already enduring.
    Admiral Winnefeld, you were asked earlier this year about 
the impact of the budget cuts on the military, and you 
responded. I have to say it was a very courageous response. I 
am quoting now. ``There could be, for the first time in my 
career, instances where we may be asked to respond to a crisis 
and we will have to say that we cannot.'' Admiral, I feel that 
we are well on our way to this unthinkable reality.
    Recently, the Department of Defense (DOD) has undertaken 
actions internally to address some critical readiness issues, 
including the resumption of flight operations for the Air Force 
after many squadrons--I believe 16--had been grounded for over 
3 months. While this development is welcome news, I remain 
concerned over the vital training and maintenance activities, 
the services that remain curtailed, and nearly 700,000 DOD 
civilians are still being furloughed. What I find most 
concerning, however, is that much of this pain has been 
unnecessary and could have been avoided all along.
    Earlier this year, I introduced a bill that would have 
provided for the Department with flexibility to allocate the 
sequester cuts in a way that minimizes risk. At that time, all 
the Chiefs agreed it would be still devastating, but not as 
devastating. When we come back and put our squadrons in flying 
status--again, I am going to conduct my own test on this, on 
how much more it costs now to retrain, get people back up in 
proficiency than it would have, had we just stayed with it.
    Our actions at home do not occur in a vacuum. Around the 
world, we are seeing the effects of declining military 
capability and the absence of American leadership. From the 
Middle East to the Asia-Pacific, our adversaries are emboldened 
and there are growing doubts about the United States among our 
allies.
    I raise these issues today because I am deeply concerned by 
the current state of our military. As our military is 
experiencing an unprecedented deterioration of readiness and 
capabilities, I ask our witnesses what advice they are giving 
the President on these matters.
    General Dempsey, at what point will you advise the 
President that the defense cuts will result in the dire 
scenario you laid out before our committee in February? You 
said, ``If ever the force is so degraded and so unready, and 
then we're asked to use it, it would be immoral.''
    General Dempsey, you also warned in testimony to this 
committee that further defense cuts will, ``severely limit our 
ability to implement our defense strategy. It will put the 
Nation at greater risk of coercion, and it will break faith 
with the men and women in uniform.'' The Service Chiefs are 
already talking about combat forces and capabilities that are 
starting to hollow out. We had a discussion about this. Are we 
hollowing out, or are we already a hollow force?
    I am afraid to remind you of the comments from the Director 
of National Intelligence, James Clapper, who stated earlier 
this year, ``In almost 50 years in intelligence, I don't 
remember that we've had a more diverse array of threats and 
crisis situations around the world to deal with than we have 
today.''
    That is our problem, Mr. Chairman, and that is why we are 
having this hearing today.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Let me call upon you, Chairman Dempsey. Welcome.

 STATEMENT OF GEN MARTIN E. DEMPSEY, USA, FOR REAPPOINTMENT TO 
THE GRADE OF GENERAL AND REAPPOINTMENT AS CHAIRMAN OF THE JOINT 
                        CHIEFS OF STAFF

    General Dempsey. Thank you, Mr. Chairman, Ranking Member 
Inhofe, distinguished Senators. I am honored to appear before 
you today on this 18th day of July as the 18th Chairman of the 
Joint Chiefs of Staff. I am also thankful, thankful for the 
confidence placed in me 2 years ago, for the continued 
confidence of our commander in chief and the Secretary of 
Defense, and for the privilege of serving alongside Admiral 
Sandy Winnefeld and the Joint Chiefs of Staff.
    Of course, I am also very thankful for the unwavering love 
and support and tireless service in her own way of my wife, 
Deanie, who is seated behind me, not to mention our three 
children and our seven grandchildren. Yes, that is plus four 
since my confirmation hearing 2 years ago, with one more due 
any day now to make it a total of eight.
    Chairman Levin. I am sure if it were allowed you would, for 
that reason alone, love to be appointed a third time. 
[Laughter.]
    General Dempsey. I do not know. Actually quite the 
opposite. I would like to spend some time with them when the 
opportunity arises.
    I also want to mention I notice that my nephew Michael 
Dempsey, who is a student at Wake Forest University and home 
for the summer, has joined us today. We are awful proud of him 
as well.
    But more than anything else, I am thankful for the 
opportunity to defend our Nation alongside the men and women 
who wear its cloth. When I witness their courage and their 
skill, I am very much reminded of the inscription that is on 
the Private Soldier Monument called ``Old Simon'' at Antietam 
Battlefield that goes like this, ``Not for themselves but for 
their country.''
    It is on their behalf and in that spirit that I am here 
today. My only purpose is to be worthy of their service every 
day and in every decision, to strengthen the relationship of 
trust that the American Armed Forces has with the American 
people, to meet our sacred obligation to keep our Nation immune 
from coercion.
    We cannot take this relationship for granted. Historic 
transitions are testing our ability to meet our obligations. We 
are in the midst of a difficult fiscal correction to restore 
the economic foundation of power. We are also transitioning 
from war to an even more uncertain and dangerous security 
landscape.
    Even as the dollars are in decline, risk is on the rise. If 
we do not manage these transitions well, our military power 
will become less credible. We will foreclose options and we 
will leave gaps in our security.
    It does not have to be that way. We can and we must lead 
through these transitions. We have it within us to stay strong 
as a global leader and as a reliable ally. We can make our 
military more affordable without making our Nation less secure. 
To do this, we need to get at least four things right.
    First, we need to get our strategy right. This means 
aligning our aims with our abilities. Strategy is nothing if it 
is not about setting priorities. Even as we rebalance to the 
Asia-Pacific region, we still have to defend the Homeland from 
cyber, terrorist, and missile attack, achieve our objectives in 
Afghanistan, deter provocation on the Korean Peninsula, assure 
and assist allies across the globe, set a more responsive 
posture for a new normal of combustible violence. As we respond 
to new contingencies, we must come to terms with the risks and 
costs to these existing obligations. We may have to do less, 
but we should never do it less well.
    Second, we need to get our force right. This means keeping 
our military ready and balanced. So far, we are getting it 
wrong. We have already lost readiness that will take more time 
and additional cost to restore. We are already out of balance 
due to the magnitude and the mechanism--not to mention the 
steep descent--of budget cuts. But it is not too late to 
recover. Remove the budget uncertainty. Slow down the drawdown. 
Help us make seemingly intractable institutional reforms. If we 
do this, we can build a joint force to meet the Nation's needs 
for a price that the Nation is able and willing to pay.
    Third, we need to get our people right. This means 
strengthening our profession while keeping faith with the 
military family. Ours is an uncommon profession, one that must 
value character as much as competence, that rests on a 
foundation of learning and leadership, that advances equal and 
ethical treatment for all its members, and that allows no 
quarter for sexual violence in all of its destructive forms. We 
also keep faith by making sure that our sons and daughters 
always go to war with the best training, the best leadership, 
and the best equipment. If we get this wrong, we will not get 
anything else right.
    Finally, we need to get our relationships right. This means 
staying connected to our allies and, most importantly, to our 
fellow Americans. Now is the defining moment in our Nation's 
relationship with its September 11 veterans. This generation is 
a national asset. They are ready to contribute in their 
communities. They need opportunities, handshakes, not handouts.
    In the end, all relationships rest on trust. Two years ago, 
I offered this image at my confirmation hearing to illustrate 
the vein of trust that must run from our men and women in 
uniform on the front lines back here and right back to our 
communities, our families, and the American people.
    [The information referred to follows:]

    See attached photo.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Dempsey. Today, it is still all about trust. 
Reconfirmation is at its base a reaffirmation of trust. I am 
humbled by the opportunity, and I will continue to work to earn 
it every day. I know you expect it and I know our men and women 
in uniform deserve it.
    I would like to say one other thing before passing it back 
to you, Mr. Chairman. I am very careful not to presume 
confirmation, and in that spirit and not knowing when my last 
opportunity will be to appear before this body, I would like to 
thank you for your leadership of this committee and your 
support of America's men and women in uniform, as well as the 
two ranking members, Senator Inhofe, Senator McCain, with whom 
I have had the privilege of working for the last 2 years.
    Chairman Levin. Thank you.
    General Dempsey. Thank you and I look forward to your 
questions.
    Chairman Levin. Thank you.
    Admiral?

      STATEMENT OF ADM JAMES A. WINNEFELD, JR., USN, FOR 
REAPPOINTMENT TO THE GRADE OF ADMIRAL AND REAPPOINTMENT AS VICE 
             CHAIRMAN OF THE JOINT CHIEFS OF STAFF

    Admiral Winnefeld. Good morning, Chairman Levin and Ranking 
Member Inhofe and other distinguished members of the Committee 
on Armed Services.
    I am also honored to appear before the committee this 
morning and to do so along with my friend and colleague and 
boss, General Marty Dempsey.
    The military is a family business, and I am pleased to have 
with me today my wonderful wife, Mary, who has been such a 
supportive partner. She is behind me in the joint purple 
outfit. She has also been a tireless advocate for military 
families and wounded warriors and their caregivers, which has 
been a great comfort to know that I have such a willing partner 
to do this sort of work.
    My sons, James and Jonathan, would have been with us also 
today, but they are both at athletic tournaments, one at a 
State baseball championship tournament and the other at a golf 
tournament. But they remind me every day of the importance of 
honorable service.
    It has been my privilege to serve the Nation as Vice 
Chairman for the past 2 years, and I am honored to have been 
asked by the President to serve another term.
    If reconfirmed, I will continue to provide independent and 
objective advice to the Chairman, the Secretary of Defense, and 
the President on the shape, readiness, health, and use of the 
military instrument of power and to keep this committee 
informed and to give my best effort within the three portfolios 
of policy, investment, and people.
    In a world growing more rather than less dangerous, at the 
same time we face considerable financial pressure, there are 
plenty of challenges in the three portfolios I just listed.
    In the area of policy, we have been grappling with a host 
of threats to our national security interests around the world, 
in Afghanistan, in Iran, on the Korean Peninsula, with the 
continuing evolution of al Qaeda and its affiliates, in the 
aftermath of the Arab Awakening in Libya, Syria, Egypt, and 
other nations, and within the increasingly complex cyber 
domain.
    In the investment portfolio, I was first confirmed by the 
Senate for this job on the same day the Budget Control Act 
(BCA) was enacted, and we continue to cope with the financial 
challenges in the wake of that act that are quietly eroding our 
readiness to defend our Nation and have so impacted our ability 
to plan for tomorrow.
    To the people portfolio, we are doing our best to manage 
the enormous uncertainty to which our military and civilian 
members and their families are being exposed during this budget 
crisis.
    We are also expending considerable effort to ensure we are 
properly caring for our wounded, ill, and injured members and 
their families, as well as finding every lever we can to 
eliminate the pernicious insider threat of sexual assault.
    These are only a few of the challenges we face, and much 
remains to be done in all three of these portfolios.
    If confirmed, I look forward to continuing to serve our 
great Nation in uniform and pledge to work with this committee 
on the difficult choices required to achieve a capable and 
strategically shaped force that can keep America safe and our 
interests secure.
    Allow me to close by saying how deeply grateful I am for 
the energy all the members of this committee and your able 
staff bring to these issues and for your longstanding support 
for our men and women in uniform and our civilians.
    I look forward to taking your questions.
    Chairman Levin. Thank you very much, Admiral.
    Let me now ask you both the standard questions which we ask 
of our military nominees.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Dempsey. Yes, sir, I have.
    Admiral Winnefeld. Yes, sir.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    General Dempsey. Yes, sir.
    Admiral Winnefeld. I do.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Dempsey. No.
    Admiral Winnefeld. No, sir.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record and hearings?
    General Dempsey. I will.
    Admiral Winnefeld. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Dempsey. Yes, sir.
    Admiral Winnefeld. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Dempsey. They will.
    Admiral Winnefeld. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    General Dempsey. Yes, sir.
    Admiral Winnefeld. Yes, sir.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General Dempsey. Yes, sir.
    Admiral Winnefeld. Yes, sir.
    Chairman Levin. Thank you.
    Okay. We are going to have a 7-minute first round of 
questions.
    General, do you support finding additional ways to increase 
the military pressure on Assad?
    General Dempsey. Senator, first, let me say that I am well 
aware of the human suffering and the tragedy unfolding in Syria 
and the effect that it is having not just inside Syria but on 
the region.
    To your question about courses of action going forward, I 
support very strongly a whole-of-government approach that 
applies all the instruments of national power.
    As for the military instrument of power, we have prepared 
options and articulated risks and opportunity costs to put 
additional pressure on the Assad regime.
    Chairman Levin. Does the administration support additional 
training and equipping of the opposition?
    General Dempsey. The administration has a governmental 
approach to the increased capability of the opposition.
    Chairman Levin. Does that include training and equipping 
militarily?
    General Dempsey. Not through the Department of Defense.
    Chairman Levin. Through other means, whether it might be 
other countries?
    General Dempsey. Yes.
    Chairman Levin. On Afghanistan, are the security forces of 
Afghanistan on track to be fully in charge of securing 
Afghanistan by December 2014 when the North Atlantic Treaty 
Organization (NATO) combat mission ends?
    General Dempsey. They are. General Dunford assesses that he 
will achieve his campaign objectives in developing the Afghan 
security forces. Now, he does also acknowledge there are some 
potential gaps that he will have better clarity on after this 
fighting season.
    Chairman Levin. But he is basically on track?
    General Dempsey. Yes, sir.
    Chairman Levin. Now, I am not going to ask you what advice 
you have given to the President on the residual force which 
might remain, assuming there is an agreement with the Afghans, 
after December 2014. I am not going to ask you what the advice 
is because that is advice you give confidentially to the 
President, and he has a right to your confidential advice.
    My question, however, is the following. Have you given the 
President your advice relative to the size of the residual 
force?
    General Dempsey. I have, sir. We have provided several 
options. As the Joint Chiefs, we have made a recommendation on 
the size and we have also expressed our view on when that 
announcement would best meet the campaign objectives.
    Chairman Levin. Now, would you agree that legal protections 
for our troops, which would be provided for if we can reach a 
bilateral security agreement with Afghanistan, are essential to 
any long-term U.S. troop presence in Afghanistan?
    General Dempsey. I do believe that.
    Chairman Levin. So any presence after December 2014 is 
dependent upon working out a bilateral agreement with the 
Afghans?
    General Dempsey. That is right, sir.
    Chairman Levin. I hope President Karzai is listening to 
that answer.
    General Dempsey. I will travel over there on Friday night, 
sir, and have a planned office call with him.
    Chairman Levin. I hope that you would make that clear, and 
also I believe that our committee--and I will not speak for 
others directly. If anyone does not feel this way, they will 
speak for themselves. But I think it is essential that he 
understand that there has to be a bilateral agreement that 
protects our troops for there to be a residual presence. I 
happen to favor a residual presence, by the way.
    General Dempsey. As do we.
    Chairman Levin. I happen to favor giving confidence to the 
Afghans that there is going to be continuing relations. But I 
do not want to just be silent in the face of what I consider to 
be President Karzai's unwise--a number of his comments which 
are very unwise in terms of whether or not he wants a residual 
presence or not. He sometimes acts like he does not want a 
residual presence even though it is very clear to me that the 
Afghan people do and so does he, but he wants it on his terms, 
and it cannot just be on his terms. It has to be on a mutually 
agreed basis. Would you agree with that?
    General Dempsey. I do, sir. I also, though, would point out 
that our relationship and our interests in Afghanistan run 
deeper than just President Karzai.
    Chairman Levin. Of course. There is going to be an election 
next year, and I think you can also pass along to President 
Karzai that his assurances that he is not going to be a 
candidate in that election but that there will be an election 
are something that the committee members, I think probably most 
of whom have met with him, take seriously. Those statements of 
his matter to us.
    Now, on the Guantanamo issue, we have in our National 
Defense Authorization Bill language which would give greater 
flexibility to the Department of Defense to transfer Guantanamo 
detainees to the United States for detention and trial, if it 
is determined to be in the U.S. national interest and if public 
safety concerns are addressed, to streamline the authority of 
the Secretary of Defense to transfer Guantanamo detainees to 
foreign countries. Do you support those provisions?
    General Dempsey. Senator, what I support as the senior 
military leader of the Armed Forces of the United States is 
that we must have an option to detain prisoners. We cannot 
expect young men and women on the battlefield to have a single 
option which would be simply to kill. We must have a capture 
and detain option. I support anything that will assure me that 
those young men and women will have that option.
    Chairman Levin. Assuming that they have that assurance that 
there are a place or places----
    General Dempsey. That is correct, sir.
    Chairman Levin.--then given that qualification, one which I 
share, by the way, do you then support the language of the 
bill?
    General Dempsey. I would have to see the bill. But if you 
are asking me has Guantanamo, the facility, tarnished the image 
of the United States globally, I think it has. Therefore, I 
would welcome any other solution.
    Chairman Levin. On missile defense, we have had an 
assessment from Lieutenant General Richard Formica, a letter 
providing the assessment that investing in additional sensor 
and discrimination capability for our Homeland missile defense 
would be a more cost effective and less expensive near-term 
Homeland missile defense option than deploying an east coast 
missile defense site, particularly since there is no current 
military requirement to deploy an east coast site.
    Do you agree with those assessments of Vice Admiral James 
Syring and General Formica? Do you agree that additional 
analysis is needed to determine whether it would be necessary 
to deploy an additional missile defense site in the United 
States in the future?
    General Dempsey. I would like to ask the Vice Chairman who 
works that to comment--but I will say I absolutely agree we 
should do the analysis before we make a decision on how best to 
meet that capability requirement.
    Chairman Levin. I am glad you gave me an opportunity to ask 
Admiral Winnefeld.
    General Dempsey. I have been looking for an opportunity, 
Senator. [Laughter.]
    Chairman Levin. Well, so have I. Thank you for giving me 
that opportunity. Admiral?
    Admiral Winnefeld. Chairman Levin, the way I have put it is 
I would spend my next dollar on missile defense on the sensor 
discrimination that you described. There is an oft-quoted 
saying in the U.S. military, ``quantity has a quality all its 
own''. In this case, quality has a quantity all its own. If you 
can get better discrimination, you can have a better firing 
doctrine that would help you there.
    I also think it is wise that we are doing the environmental 
impact statements (EIS) for a potential east coast site. As we 
watch the threat develop--and we are going to have to be very 
cognizant of that because it could develop quickly--it may 
become necessary to actually put into place a second site. We 
will play that as we have to.
    Chairman Levin. But when you say we should do the EIS, you 
mean before making a commitment to a site, that you complete 
those assessments?
    Admiral Winnefeld. Yes, sir. I think we are planning on 
doing the EISs in the relatively near term, and I think they 
will be done naturally probably before there is a need to 
actually make a decision to go with an east coast site. But I 
also want to state we need to be cautious and very cognizant of 
where the trajectory is of the threat.
    Chairman Levin. When you say they will be done naturally, 
you think they should be done?
    Admiral Winnefeld. They will be done. They should be done. 
I agree with doing them as a hedge, as part of our hedge 
strategy that we have always considered having an east coast 
site, just as a part of the hedge strategy with putting more 
interceptors----
    Chairman Levin. I am just trying to get a clear answer. Do 
you believe they should be done before the decision is made as 
to whether any site is selected?
    Admiral Winnefeld. Yes, sir, I think so.
    Chairman Levin. I have gone over my time. I apologize to my 
colleagues and call upon Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    In my opening statement, I quoted each one of you, and they 
are very strong quotes, particularly the one stating ``If ever 
the force is so degraded and so unready, and then we're asked 
to use it, it would be immoral.'' Then General Dempsey, you 
add, ``There could be for the first time in my career instances 
where we may be asked to respond to a crisis and we will have 
to say that we cannot.'' Then, of course, we saw that James 
Clapper said that there has never been a time in our history--
and he has been around for 40 years--when the threats are so 
great and diverse as they are today.
    Do you agree with that?
    General Dempsey. I do, Senator. There are probably fewer 
existential threats to the Nation, but there are far more ways 
that middle-weight states, non-state actors, and violent 
extremist groups can reach out and touch us.
    Senator Inhofe. Do you agree with that, Admiral?
    Admiral Winnefeld. Yes, sir. I would say that there are two 
definitions of a hollow force. One is the force is larger than 
the readiness money you have to keep it ready, and that is the 
more complex definition. The simple one is something that looks 
really good on the outside but it is rotten in the middle.
    Senator Inhofe. Yes. I was not talking about the hollow 
force. I was talking about the threats that are out there.
    I look back wistfully at the days of the Cold War. Things 
were predictable back then. Now, you have entities out there, 
like Iran, that our intelligence says are going to have a 
weapon and the capability of a delivery system. That is what he 
is talking about. I think it is a scary thing.
    You both believe that. Have you shared this with the 
President?
    General Dempsey. Yes, we have briefed the President.
    Senator Inhofe. So he knows this?
    General Dempsey. Yes, sir.
    Senator Inhofe. Yet, he continues with his approach.
    Let me ask you a question about GTMO. You said you would 
welcome any other solution. I have often looked at GTMO as one 
of the few good deals we have in this country that we have had 
since 1904. Rent is $4,000 a year I think it is, Mr. Chairman, 
and they do not collect it half the time. Yet, when you say we 
welcome any other solution, what other solution? Is there a 
solution out there that would not entail bringing these people 
into our continental United States? Either one of you.
    General Dempsey. I have seen the analysis done of any 
number of solutions, but there has not been any consensus on 
which one to pursue. I simply want to align myself with those 
who say we have to have a detention solution.
    Senator Inhofe. No, I agree. We have to have a detention. 
We have something there that is ready-made. I understand that a 
lot of the people in the Middle East do not like it. It has 
given us a bad reputation in some areas. But, I believe that we 
need to think of America first.
    I can recall 4 years ago when the President came out 
talking about these alternatives that they had. They had sites 
in the United States. One was in Oklahoma. I went down there 
and I talked to a young lady. She was in charge of our prison 
down there. She had had several tours in GTMO, and she said, 
``What is the matter with them up there? Don't they know that 
we have this?'' It is ready-made.
    I have to say this because this is a great frustration to 
me. Yes, we have language that is pretty good language in the 
bill, but nonetheless--I will just ask one last question on 
that.
    Can you think of anything that would not entail 
incarceration or movement into the United States? Right now off 
the top of your head.
    Admiral Winnefeld. I do not have an easy answer to that 
one, Senator.
    One thing I would mention is just a little more flexibility 
I think would be useful to us. I will give you an example. We 
have a moral obligation to take good medical care of these 
detainees. Because we cannot move them outside of GTMO, we have 
to build very state-of-the-art medical facilities.
    Senator Inhofe. I have seen it.
    Admiral Winnefeld. It would be great to be able to move 
them briefly back and forth to the United States if they need 
medical treatment and send them back. That is the kind of 
flexibility I mean.
    Senator Inhofe. Okay, that is fine.
    Admiral Winnefeld. I know that is different from what you 
are talking about.
    Senator Inhofe. We have that. There is not a person up here 
who has not been down there more than once. One of the big 
problems they have with the detainees down there is they are 
overweight, and they are eating better than they have ever 
eaten in their lives. They have better medical attention. They 
have tests run that they never even heard of before. I think we 
are meeting that.
    On April 9, when we stop the flying--I have talked to each 
one of you about this, but I think we need to get something on 
the record. I have an aviation background, and I do not think 
you have to have that to know that you have to keep your 
proficiency up. That was 3 months ago, April 9. Now, I applaud 
the decision to now get back in and start retraining.
    I mentioned in my opening statement that I was going to 
conduct a study as to how much more it costs us to go through 
the retraining that we are going to have to go through right 
now than if we had never made the decision back on April 9.
    Have you already done that, or do you have any information 
in terms of how much more it is going to cost now than if we 
had not done it to start with?
    Admiral Winnefeld. I think it is a good question, and I 
think we can easily get that for you for the record in terms of 
cost.
    What I can tell you is that if you take one of these 
squadrons that has not been flying at all, it is going to take 
anywhere from 1 to 3 months for them to bring their proficiency 
back up just in basic airmanship skills, taking off and landing 
and that sort of thing, and then probably another 3 months 
beyond that to get their combat skills back. I think of it more 
in terms of time, but there is a cost dimension and we can get 
you that.
    Senator Inhofe. Yes, but time, would you not agree, equals 
risk at the time we need these? We had some of them who came 
right out of school right around April 9. They are going to go 
back and almost start from the beginning now. If we do not have 
the capability of taking care of the needs as they come up, I 
believe that that translates into a risk that I am not willing 
to take if I can do anything about it.
    [The information referred to follows:]

    As of today, there are 18 squadrons in the Air Force still flying 
at reduced levels of readiness. An additional 7,000 flying hours at a 
cost of $116 million above the President's 2014 budget request and 3-6 
months would be necessary to bring these remaining 18 squadrons from 
current (lower than Basic Mission Capable) flying rates back to pre-
sequester mission status (Combat Mission Ready flying rates).
    Prior to sequestration, a substantial number of Air Force squadrons 
were already operating at lower than optimal goals due to previous 
Budget Control Act (BCA) reductions and the effects of long-term high 
operations tempo. On 9 April, a total of 31 squadrons were stood down, 
including 13 combat-coded (fighter, bomber, and Airborne Warning and 
Control System) units and 18 institutional units (Weapons School, 
Aggressors, Thunderbirds, etc.). Through efficiencies and the $208 
million from the Department of Defense reprogramming request, the Air 
Force was able to shift funds and increase the flying rates of the 13 
combat coded units back to Combat Mission Ready (CMR) rates for the 
remainder of fiscal year 2013. It will take 3-6 months at this CMR rate 
before these squadrons return to pre-sequestration mission ready rates. 
The efficiencies and reprogramming also allowed the remaining 18 
institutional units to resume flying, albeit lower than Basic Mission 
Capable rates.
    The Air Force will continue to have readiness challenges due to the 
BCA and sequestration, beyond the units that were stood down. To bring 
all Air Force flying squadrons back to full mission readiness goals 
needed to meet Defense Strategic Guidance requirements, it would take 
approximately 2 years, an additional $3.2 billion per year in fiscal 
year 2014 and fiscal year 2015, and a reduction in current deployment 
tempo (e.g. deploy-to-dwell at 1:3 or better).

    General Dempsey. Senator, could I add?
    Senator Inhofe. Sure.
    General Dempsey. What we are seeing is that we are going to 
end up with two problems over time if sequestration remains in 
effect. The immediate problem for the next several years will 
be readiness because we will not be able to find the money we 
need to achieve the level of sequestration cuts without 
dramatically impacting our readiness. Then as the force becomes 
smaller, you can restore readiness because you are dealing with 
a smaller force, but I think too small. So it goes too far too 
fast.
    Senator Inhofe. Yes, I understand that. The proficiency of 
a smaller number of units can be greater but you are still 
dealing with a smaller number of units. When we have the 
diverse threats that we have right now, to me that is not a 
very good idea, not that you can do anything about it, but 
right now that is a problem.
    The last question, because my time is up, would be, 
Admiral, I appreciate the fact that you used the word 
``immoral''. Given the current path of readiness in the Armed 
Forces, in your professional judgment when will the commander 
in chief be at a point of making immoral decisions?
    Admiral Winnefeld. I do not think I was the one who used 
the term ``immoral''.
    But I think we are keeping the White House closely informed 
as to the outcome of the Strategic Choices and Management 
Review. That includes both capability, capacity, and readiness 
of the force. They are aware of those results and I am sure 
that they are going to factor that into their decisionmaking on 
the rest of the budget issues that are in play. Hopefully, we 
will be able to find a good resolution that will allow us to go 
forward with being able to plan for the future.
    Senator Inhofe. I appreciate both of you. We have to let 
the people know that we have a real serious problem here, and I 
think this hearing is our opportunity to do that.
    I apologize in attributing a quote to you. I guess it was 
General Dempsey who made that quote.
    General Dempsey. Yes, it was, sir.
    Let me assure you that if the Nation is threatened, we will 
go. But that is the point. We will go and we may not be ready 
to go. So it would depend on the nature of the conflict in 
which we were asked to participate. If it is an existential 
threat to the Nation and we send them, there is no immorality 
in that. But if this were some other contingency and we were 
asking young men and women to go not ready and we had a choice 
to do that----
    Senator Inhofe. That is where the immorality issue comes 
in.
    General Dempsey. That is right.
    Senator Inhofe. I appreciate that very much and I agree 
with you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    I join in thanking both of you for your service over many, 
many years.
    General Dempsey, you and I have discussed briefly the 
purchase of helicopters for the Afghan armed services, the 
purchase of Russian MI-17s from the export agency controlled by 
Russia that is now selling arms to Syria and a country that is 
still harboring, providing refuge to Edward Snowden. We 
discussed the reasons for that sale. Very graciously, you 
suggested you would look into the possibility of either ending 
that sale, which will result in helicopters right now, 
according to the Inspector General for Afghanistan, sitting on 
the runways of Afghanistan because they lack pilots to fly them 
and they lack people trained to maintain or repair them.
    I wonder whether there is something we can do either to 
stop those sales, purchases subsidized by American taxpayers, 
provided by American taxpayers to a supposed ally that still 
does not have a status of forces agreement with us that will 
enable us to continue providing aid to them. I think in 
connection with that question, what additional kinds of 
resources we should consider stopping if there is no status of 
forces agreement?
    General Dempsey. Senator, on the MI-17s, I support 
continuing on the path we are on to get the Afghans as capable 
as possible by the end of 2014, and that will require us to 
stay committed to that fleet of MI-17s. There is no way we 
could transition at this point and put them in anything other 
than that airframe.
    What I suggested to you is that if we can achieve a 
lasting, enduring relationship with them and if they live up to 
their end of the deal and we live to our end of the deal, we 
will be investing in them through foreign military sales for 
some time. There is a likely point where we could transition 
them to U.S.-built aircraft. But in the interim period, we 
cannot. I should not say we cannot. It would be my 
recommendation that we stay the course with the existing 
program.
    Senator Blumenthal. Is that interest sufficient, do you 
think, to justify the national security waiver under the 
legislation that is currently included in the National Defense 
Authorization Act (NDAA)?
    General Dempsey. I do, sir.
    Senator Blumenthal. What would have to change for those 
helicopters to be purchased from an American manufacturer such 
as Sikorsky or any of the others that are more than capable of 
providing better aircraft to the Afghans?
    General Dempsey. We actually have experience in making that 
transition in Iraq where we have initially outfitted them with 
Soviet aircraft and are now making the transition to an 
American airframe. It starts with training and long lead time 
procurements. But that effort is unlikely to begin until we 
establish a bilateral security agreement.
    Senator Blumenthal. Admiral Winnefeld, I was at a briefing 
recently that you gave, an excellent briefing, on threats to 
our Navy. I wonder if you could comment, to the extent you are 
able, on the importance of the Ohio-class replacement in terms 
of nuclear deterrence, the importance of continuing with that 
program, and any possible jeopardy that might be impacted as a 
result of sequester.
    Admiral Winnefeld. Senator, we of course remain committed 
to the triad. We believe that is the right approach for nuclear 
deterrence for this country, and of course, the fleet ballistic 
missile submarines are an absolutely essential element of that 
triad. It is the most survivable element that we have. It is a 
very reliable platform, a very reliable missile that goes with 
it. We are very committed to the next class coming down the 
line.
    I think we have delayed it about as far as we can. We need 
to now--and we are getting into the requirements and design of 
this missile-carrying submarine. Again, we are just committed 
to the program. It is terribly important that we get this 
right.
    We are going to try to control the costs on it. We are 
going to try to make this, like all the programs we are working 
right now, from the beginning a successful acquisition program. 
I know that the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (AT&L) and Sean Stackley with the 
Navy and the Chief of Naval Operations himself are all 
committed to making this a successful program.
    Senator Blumenthal. You would agree, would you not, that 
this program really has to be spared any impact as a result of 
sequester? It is so vital to our national security.
    Admiral Winnefeld. I would agree with that, yes, sir.
    Senator Blumenthal. General Dempsey, I wonder if I could 
move to a personnel issue that I know, because of your personal 
commitment to the well-being of our troops, is of great 
interest to you, the electronic medical record system which 
still is incompatible--the Department of Defense medical 
records system with the Department of Veterans Affairs (VA) 
record system--despite questions that I and others have asked 
repeatedly under this Secretary of Defense and the previous 
one. I remain concerned, to put it mildly, with the fact that 
interoperability still is a goal not a reality. I wonder if you 
could comment on what can be done to increase the pace of 
making those two systems compatible. I had thought originally 
that they would be one system. A billion dollars has been spent 
on making them one system.
    General Dempsey. Thank you, sir.
    I share your concern. I can also assure you that Secretary 
Hagel who has a background in the Veterans Administration 
shares it. He has taken a decision to move the responsibility, 
the program management, into AT&L where it will, I think you 
will see, be much better managed.
    We have done other things. For example, agreed to certify 
as complete medical records that pass from Active Duty into the 
Veterans Administration, which then relieves the burden of them 
having to do continual research to figure out if the record is 
complete.
    That is the path we are on, but your oversight and interest 
in it will be an important part of achieving it.
    Senator Blumenthal. Thank you.
    My time has expired. But I, again, want to thank you both 
for your extraordinary service and just to reiterate, General 
Dempsey, I remain unhappy, very strongly unhappy, with our 
current position and posture vis-a-vis those MI-17s and I am 
not going to let the issue go. With all due respect, I 
understand your position. Thank you very much for being so 
forthright in your answers.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Blumenthal.
    Senator McCain?
    Senator McCain. Thank you, Mr. Chairman.
    I must tell both the witnesses at the onset I am very 
concerned about the role you have played over the last 2 years, 
your view of your role as the chief advisors to the President 
on national security, and the state of the world over the last 
2 years since you have come to hold the office you hold.
    General Dempsey and Admiral Winnefeld, do you believe the 
continued costs and risks of our inaction in Syria are now 
worse for our national security interests than the costs and 
risks associated with limited military action?
    General Dempsey. Senator, as we have discussed----
    Senator McCain. I would like to know an answer rather than 
a filibuster. I have 6 minutes and 10 seconds.
    General Dempsey. I assure you, Senator, I will not 
filibuster.
    This is a regional issue. I would say that the issue in 
Syria is we are at greater risk because of the emergence of 
violent extremist organizations, as is Iraq.
    Senator McCain. You are not answering the question, 
General. Do you believe the continued costs and risks of our 
inaction in Syria are now worse for our national security 
interests than the costs and risks associated with limited 
military action?
    General Dempsey. With all due respect, Senator, you are 
asking me to agree that we have been inactive, and we have not 
been inactive.
    Senator McCain. We have not been inactive?
    General Dempsey. That is correct.
    Senator McCain. This, again, gives validity to my concern 
because, obviously, we may not have been inactive, but any 
observer knows that Bashar al-Assad is prevailing on the 
battlefield. Over 100,000 people have been killed. Hezbollah is 
there. The situation is much more dire than it was 2 years ago 
when you and Admiral Winnefeld came to office.
    So your answer is that we have not been inactive?
    General Dempsey. That is correct. We have not used direct 
military strengths, but we have not been inactive.
    Senator McCain. I will ask you for the third time. Do you 
believe that we should take military action? Which has greater 
risk? Our continued, limited action or significant action such 
as the establishment of a no-fly zone and arming the rebels 
with the weapons they need, which they have not been getting, 
General, I know. I know perhaps better than you because I have 
been there. Which do you think is a greater cost? The action 
that we are taking now, which has had no effect on the 
battlefield equation, or doing nothing?
    General Dempsey. Senator, I am in favor of building a 
moderate opposition and supporting it. The question of whether 
to support it with direct kinetic strikes is a decision for our 
elected officials, not for the senior military leader of the 
Nation.
    Senator McCain. This goes back to my concern about your 
role as Chairman of the Joint Chiefs.
    General Dempsey. I understand.
    Senator McCain. The Chairman of the Joint Chiefs is 
supposed to provide the best advice he can as far as our 
overall national security is concerned. That is why you are the 
sole military advisor.
    You testified this February you had advised the President 
to arm vetted units of the Syrian opposition. In April, you 
testified you no longer supported the position. Now we read in 
published reports that the administration has decided to arm 
the Syrian opposition units.
    How do we account for those pirouettes?
    General Dempsey. I would not accept the term ``pirouette,'' 
sir. I would accept the term that we have adapted our approach 
based on what we know of the opposition. If you recall, in the 
beginning of the year there was a period where it was pretty 
evident that the extremist groups were prevailing inside the 
opposition. So I have not been wavering----
    Senator McCain. Is your position that the extremist groups 
are prevailing inside the opposition?
    General Dempsey. You asked me about February. In February, 
I had that concern.
    Senator McCain. So that is your answer to why in February 
you advised the President to arm them? In April, you said that 
we should not, and then now, obviously, we are arming the 
rebels. Do you support that policy?
    General Dempsey. I support the building of a moderate 
opposition and including building its military capability.
    Senator McCain. Here is an example of my concern. You told 
CNN on July 8, ``the war in Syria is not a simple matter of 
stopping the fight by the introduction of any particular U.S. 
capability. It seems to me that we need to understand what the 
peace will look like before we start the war.'' The war has 
been going on, General Dempsey, to over 100,000 people killed. 
We did not start the war and we would not be starting a war. We 
would be trying to stop a massacre that is going on. We would 
try to stop the Hezbollah with thousands of troops. We would 
try to stop the fact that the Russians continue to supply 
heavily Bashar al Assad's forces and what would be a great 
triumph for Iran in the entire region. But you say it seems to 
me we need to understand what the peace will look like before 
we start the war. Do you think we ought to see how we could 
stop the war by intervening and stopping the massacre?
    General Dempsey. Senator, would you agree that we have 
recent experience where until we understood how the country 
would continue to govern and that institutions of governance 
would not fail, that actually situations can be made worse by 
the introduction of military force?
    Senator McCain. Actually, General Dempsey, you and I went 
through this in 2006 in Iraq when I said that it was not 
succeeding and that we had to have a surge and that only a 
surge could succeed in reversing the tide of battle. You 
disagreed with me way back then. I think history shows that 
those of us who supported the surge were right and people like 
you who did not think we needed a surge were wrong.
    I guess my question to you is, is it in any way a good 
outcome for this situation on the battlefield to continue as it 
is with obviously Bashar al-Assad prevailing and a great 
victory for Iran and continued slaughter of thousands and 
thousands of people, the destabilization of Jordan, the 
destabilization of Lebanon, and what is clearly erupting into a 
regional conflict? Is that your answer?
    General Dempsey. Senator, somehow you have me portrayed as 
the one who is holding back from our use of military force 
inside of Syria.
    Senator McCain. No, I am not saying that, General. I am 
saying what your advice and counsel is to the President of the 
United States, and your views are very important because that 
is your job.
    General Dempsey. It is. I have given those views to the 
President. We have given him options. Members of this committee 
have been briefed on them in a classified setting. We have 
articulated the risks. The decision on whether to use force is 
the decision of our elected officials.
    Senator McCain. The chairman just asked you if you would 
give your personal opinion to the committee if asked. You said 
yes. I am asking for your opinion.
    General Dempsey. About the use of kinetic strikes? That 
issue is under deliberation inside of our agencies of 
Government, and it would be inappropriate for me to try to 
influence the decision with me rendering an opinion in public 
about what kind of force we should use.
    Senator McCain. So your answer to the chairman's question 
about giving your personal view is circumscribed by decisions 
that are still being made?
    General Dempsey. I will rather let this committee know what 
my recommendations are at the appropriate time. Yes, sir.
    Senator McCain. When might that be?
    General Dempsey. Sir, if the administration and the 
Government decides to use military force, we have provided a 
variety of options, and you know that.
    Senator McCain. Well, if it is your position that you do 
not provide your personal views to the committee when asked, 
only under certain circumstances, then you have just 
contradicted what I have known this committee to operate under 
for the last 30 years.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman, and thank you, 
General. Thank you, Admiral.
    I want to get back to Syria in a second.
    But, first, I want to ask you, General Dempsey. In regards 
to mental health services for our servicemembers, one of the 
things that has recently happened is that at Camp Lejeune, they 
were reduced by about 50 appointments per month because of the 
sequestration. I was wondering if you know if there has been 
any increase in suicide or suicide attempts since sequestration 
took effect.
    General Dempsey. I do not have that data readily available, 
Senator. It is a good question. We are aware of some of the 
reduction in services. I can take that for the record.
    Senator Donnelly. Okay, great.
    [The information referred to follows:]

    While it is difficult for the Department to track a direct effect 
of sequestration on suicide events or attempts, one thing is certain, 
the Department has witnessed a decline in the total number of suicide 
events during calendar year 2013 as compared to calendar year 2011 and 
calendar year 2012. The latest suicide report from the Armed Forces 
Medical Examiner's Office (week ending July 14, 2013) stated that year-
to-date 2013 there have been a total of 156 confirmed and suspected 
suicides. This number, while unacceptably high, indicates 45 fewer 
suicide events compared to 2012 and 8 fewer than in 2011. We're 
cautiously optimistic that our extensive efforts may be showing 
results, and we must continue to keep our eye on the ball following 
through on prevention efforts to ensure these numbers continue to 
decrease. The Department will continue its collaboration efforts with 
the Department of Veterans Affairs, other Federal agencies, 
nongovernmental organizations, and academia to share an understanding 
of key risk factors associated with suicide, collaborate on a national 
strategy, and develop best practices in suicide prevention.
    Since the date civilian furloughs officially began (on/about July 
8, 2013), there have been seven new cases of suicide events. While 
there has been a decrease in the number of services provided due to 
sequestration, the number of suicides has not increased. Suicide 
remains a highly complex issue with many facets contributing to a 
servicemember's choice to commit this act. Personal/dispositional 
factors, contextual factors, clinical health factors, historical 
factors, and even deployment factors can all contribute as stressors 
linked to suicide events and in some cases a lack of services may not 
be at issue at all. While sequestration will force the department to 
make tough decisions, suicide prevention is of vital importance and 
will remain a top priority for our leaders.

    Senator Donnelly. The follow-up on that would be, are there 
efforts in place right now to try to minimize the effect on 
mental health since it has such a dramatic effect on our 
servicemembers?
    General Dempsey. There are any number of efforts, and it 
has the attention of not only the Department but also the Joint 
Chiefs. Admiral Winnefeld himself chairs a meeting with the 
Vice Chiefs of the Services. We meet in the tank. We are 
concerned because although we have prioritized care for wounded 
warriors, families, and mental health services in the face of 
declining resources, how that is implemented in the field can 
sometimes be missed. We are alert to it.
    Senator Donnelly. Okay.
    I was in Afghanistan a few months ago and met with our 
commanders. At the time, we were on all of our metrics. We were 
right where we wanted to be as we head toward the end of 2014. 
Admiral and General, are we still meeting the plan that we had 
laid out? Are we still being able to hold the towns that we 
have started to hold? Are we able to turn the Taliban back? Is 
the plan moving along on schedule? Is it going faster or 
slower? Are we meeting the numbers we were hoping to meet as we 
head toward the end of 2014?
    General Dempsey. I will start and see if the Vice wants to 
add anything.
    Besides speaking with General Dunford on a weekly basis and 
visiting him about quarterly, I also reach out to as many other 
people as I can possibly reach out to who can give us other 
views. Yesterday we had a woman from the Congressional Research 
Service who had actually spent the last 5 months traveling 
around Afghanistan visiting with civilian and military leaders, 
mostly Afghans. Her report aligned with General Dunford's 
assessment that we can achieve our military campaign objectives 
on the timeline that is currently established.
    Senator Donnelly. I appreciate the update because if we are 
able to stay on that program, then the Afghan forces have a 
chance to make this work.
    To get back to Syria that Senator McCain was talking about, 
if conditions do not change, does it look to you, as it looks 
to many, that in the near future Daraa could also fall to the 
Assad Government as well?
    General Dempsey. Actually the chairman asked----
    Senator Donnelly. I apologize. I had to step out.
    General Dempsey. No, no, sir. I was just reflecting on the 
fact that there are many people concerned about Daraa. I met on 
Saturday with King Abdullah from Jordan, and I will be visiting 
him next week and his leaders as well. We have military 
contingency planning ongoing both back here, but also inside 
Jordan. So, yes, we are concerned about Daraa.
    The conflict tends to ebb and flow. That kind of conflict 
will always ebb and flow. We are watching and making sure that 
we would have options available to the national command 
authority if necessary.
    Senator Donnelly. What steps, short of a limited no-fly 
zone, could have the kind of effect that could slow down the 
Assad forces?
    General Dempsey. Let me pass that to the Vice because he 
just did some significant work on this in preparation for his 
hearing on Tuesday.
    Admiral Winnefeld. Senator, there are a whole range of 
options that are out there.
    Senator Donnelly. The reason I asked that is because I know 
there is a whole range of options, but as you look at 
everything, the rebel forces are being moved from almost 
everywhere they are located. So we have options but the ball 
seems to be heading the other way.
    Admiral Winnefeld. I would not want to get into any 
Intelligence Community judgments or anything classified in an 
unclassified hearing. But I think as commonly known, where the 
opposition is most on the run right now is in the central and 
western part of Syria around al-Qusayr, which they have lost, 
around Homs, which is a very difficult situation for them right 
now. That also happens to be the most important place other 
than Damascus itself probably for the Syrian regime to regain 
control of because that represents the pathway from Damascus 
into their traditional homeland near the coast. So they really 
want that back.
    I believe personally--and it is only my personal judgment--
that if the regime is successful in that area, they will next 
move north to Aleppo, which is the largest city in Syria. It is 
their commercial center. I do not think they are going to go 
down to Daraa yet, but we have to watch. We have to maintain 
vigilance and discern where this thing is headed.
    Senator Donnelly. Then whether it is Aleppo or Daraa, and I 
know there are contingencies, but to not take action is to take 
action and is determinative of what happens. I think there is a 
concern as to how long does this go on before the momentum 
becomes irreversible.
    Admiral Winnefeld. We are ready to act if we are called 
upon to act. I think the current track that is being pursued by 
the administration is a diplomatic track. All manner of other 
options have been discussed and are continually under 
discussion, and I would not want to get out in front of the 
President or anybody else on what choices he might make.
    Senator Donnelly. In effect, you are waiting to hear at 
this point.
    Admiral Winnefeld. As we should be. We are ready, providing 
every possible option we can in case we are called upon to 
exercise the use of force, which we believe is a political 
decision.
    Senator Donnelly. In regards to the rebel forces, as you 
look at them right now, General and Admiral, we have been 
concerned about al Nusra and their activities. Do you see the 
al Nusra piece growing stronger than the moderate piece? How do 
you see this moving on a day-to-day basis?
    General Dempsey. There was a period back in April that 
Senator McCain referred where I was very concerned that the al 
Nusra front, Ahrar al-Sham, and others--there are hundreds of 
different groups that shift allegiances and alliances on the 
opposition side, and it makes it very challenging to determine 
what we are really looking at there. The Intelligence Community 
is hard at it. I am hard at it. We are hard at it with our 
regional partners. There was a period of time when I was 
fearful that the extremist element, the jihadist Salafist side 
of the opposition was gaining considerable strength.
    Of late, through some efforts that we have made to convince 
our allies to avoid creating a problem by empowering some of 
these groups, we have had some success at that. We have also 
had some success in identifying more clearly a part of the 
opposition that could be built and trained not only militarily. 
This is the point I really want to make sure resonates. This 
opposition has to not only be prepared militarily, but it has 
to be prepared if it achieves a position of governance inside 
of Syria. Otherwise, the situation will deteriorate even 
further.
    Senator Donnelly. General, Admiral, thank you for your 
service.
    Mr. Chairman?
    Chairman Levin. Thank you very much, Senator Donnelly.
    Now, before I call on Senator Wicker, Senator Inhofe has a 
very brief comment.
    Senator Inhofe. Just a brief clarification. I was told by 
my staff when I came back that I might have been misunderstood 
in my comments about GTMO. I am arguably the strongest 
supporter of opening it up, using it to its fullest capacity 
not just for incarceration but for trials. The language is in 
the bill. Mr. Chairman, I appreciate your good faith efforts in 
the language that was in there, but I am against the language 
that is in the NDAA.
    Thank you for giving me the opportunity to state that.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Wicker?
    Senator Wicker. Thank you, Mr. Chairman.
    General Dempsey, welcome back.
    Let us talk about the situation in Egypt. There has been 
disagreement in Washington about the wisdom of continuing to 
provide assistance to the Egyptian military in light of recent 
events there. When I look at Egypt, I do not see very many 
Jeffersonian Democrats, but I believe the Egyptian military has 
acted with great professionalism and restraint throughout the 3 
years of difficult transition since the 2011 ouster of Hosni 
Mubarak.
    I believe one of the primary reasons there has not been far 
more bloodshed and suffering during this time of transition is 
the support the United States has provided to Egypt through 
foreign military sales and military-to-military cooperation.
    In light of recent events, some have called for the end of 
these programs. Let me tell you how I feel about this and our 
commitments under the Camp David Accords and then I will let 
you respond.
    First, we must maintain the strength of this relationship 
to enable us to assist and influence Egypt's military leaders.
    Second, the United States would be shortsighted to overlook 
the return on investment we get from the Egyptian military, for 
example, Suez Canal transits for our carrier battle groups, 
intelligence cooperation, counterterrorism cooperation. These 
are examples of the benefits we derive from this relationship.
    Third, the Egyptian military has played a stabilizing role 
during Egypt's transition.
    Fourth, our commitments under the Camp David Accords have 
yielded sustainable peace between Israel and Egypt. We must 
acknowledge Israeli Prime Minister Netanyahu's statement this 
weekend on Face the Nation that the Camp David Accords have 
been, ``The cornerstone of peace between us and our neighbors, 
and it has also been the cornerstone of stability in the Middle 
East.''
    General Dempsey, do you agree with me regarding the 
importance of military-to-military relationships as enablers of 
U.S. foreign policy?
    General Dempsey. I do, Senator.
    Senator Wicker. Do you agree with me that we should 
continue to maintain and foster the strength of the U.S.-
Egyptian military relationship?
    General Dempsey. I do. If our Government decides that they 
have to take some action based on existing legal frameworks and 
restrictions, I would recommend that we find a way to restore 
those as quickly as possible even if it meant conditioning them 
some way. But I very strongly believe we have to maintain our 
contact with the Egyptian armed forces.
    Senator Wicker. Do you have any reason to believe, as some 
have feared and as some fear now, that weapons and equipment 
that we provide to the Egyptians or that we have provided in 
the past have been used or will be used or would be used in 
ways that might eventually endanger the U.S. military or 
civilian personnel or U.S. interests?
    General Dempsey. There is no indication at this point, 
Senator, that that would be a concern.
    Senator Wicker. In your opinion, was the elected Government 
of Mohamed Morsi moving toward a dictatorship?
    General Dempsey. If I could, I would like to use this 
opportunity to express my conversations with my counterpart. I 
can tell you they very strongly believe that.
    Senator Wicker. Okay. Let me ask you then, before I move on 
to another topic. I made some pretty emphatic statements. Would 
you like to elaborate? I will give you an opportunity to 
elaborate on what you have said about the relationship that we 
have had and the assistance and the sales that we have had with 
the Egyptian military.
    General Dempsey. Thank you. My own personal experience with 
it goes back to when I commanded U.S. Central Command (CENTCOM) 
in 2008, and I can tell you that they are a very strong partner 
of the United States, a very key nation in the region. As you 
put it yourself, we enjoy preferential passage in the Suez, 
dynamic overflight. They have committed to the Camp David 
Accords. The Israeli military considers the Egyptian military a 
strong partner. In my personal experience, which goes back now 
about 5 years, they are worth the investment.
    Senator Wicker. Now, with regard to Syria, the chairman 
talked in his opening statement about a post-Assad solution, 
the negotiated solution. Do you agree that unless the momentum 
shifts--and I think Senator Donnelly was concerned about this 
also--back toward the rebels, there is hardly any chance for 
that sort of solution that the chairman seeks and is hoping 
for?
    General Dempsey. Yes, I agree. I think as the momentum ebbs 
and flows, each side feels itself more compelled or less 
compelled to seek a negotiated settlement. Sure.
    Senator Wicker. If I can, I think you answered a question 
from the chairman about ways in which military support could be 
gotten to the rebels, and I think he asked about enabling other 
governments to support the military efforts if we are unable 
politically or unwilling to do so. Do you remember that 
question?
    General Dempsey. I do.
    Senator Wicker. Can you elaborate at all, or is that 
something you just do not feel comfortable talking about?
    General Dempsey. No. I am comfortable talking about the 
commitment to improve the capabilities of the opposition. There 
are any number of ways to do it directly.
    Senator Wicker. The military capability?
    General Dempsey. That is correct.
    But you have also heard me say it is not just about 
improving or enhancing their military capability.
    Senator Wicker. I understand that, but that is what my 
question is about.
    General Dempsey. Yes, sir.
    Of course, other nations as well. There is a significant 
diplomatic effort to bundle our efforts together into something 
that will increase the pace at which their capability could be 
increased.
    Senator Wicker. Could you elaborate as to who these allies 
might be that are a little more willing?
    General Dempsey. I would rather do that in a classified 
setting, Senator.
    Senator Wicker. Okay.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Reed is going to yield momentarily to another 
Senator who is next in line who I believe is Senator 
Gillibrand. Senator Reed is going to yield just for one turn.
    Senator Gillibrand. Okay, thank you. Thank you, Mr. 
Chairman.
    Thank you both for your public service, for your 
dedication, for all that you do for our military and for our 
Nation.
    I would like to first focus and continue the conversation 
on Syria.
    I have grave concerns over the broader regional security in 
the Middle East, particularly when we are seeing the continued 
influx of jihadi and Hezbollah fighters into Syria. I want to 
talk a little bit about what this means for Syria's neighbor.
    Obviously, with Hezbollah in Lebanon, Iran has been able to 
have an influence at Israel's border. Will Iran be able to do 
the same with regard to Syria in your estimation? What can we 
do to prevent both a jihadi haven, as well as a stronghold for 
Iran through Hezbollah in Syria?
    General Dempsey. I will take this and then if the Vice 
Chairman wants to add because we have been--it will not 
surprise you to know--deeply involved in this issue 
collaboratively.
    First of all, you are exactly right to think of this as a 
regional issue, Senator. I would add that Iran is not just a 
challenge to the United States in its nuclear aspirations but 
also through its surrogates, its proxies, its arm sales. They 
are trying to foment a sectarian conflict that runs from Beirut 
to Damascus to Baghdad. The approach to that, the strategy that 
would underpin our efforts should be regional, therefore, which 
means we need to increase our support of the Lebanese armed 
forces on one side, of the Iraqi armed forces on the other, and 
of our Jordanian and Turkish partners on the northern and 
southern flank.
    Senator Gillibrand. With regard to the broader question on 
Iran specifically, I have heard both cautious optimism and 
grave concern about the election of Rohani as the new 
President. What is your assessment of the impact of the 
election? Do you expect his election to change Iran's nuclear 
policy or its international policies? What is your initial 
assessment?
    Admiral Winnefeld. First of all, I reflect back on former 
Secretary Gates' oft-quoted remark of he is looking for the 
elusive Iranian moderate. Rohani does have a reputation for 
being a moderate. He has made some moderate statements since he 
has been elected, but he is not in office yet. There are those 
of us who have the opinion he is going to struggle a little bit 
against a very conservative central government leadership led 
by the Supreme Leader that may prevent him from, if he wants to 
be a moderate, becoming one.
    I think the real watchword here is prudence. It makes sense 
to potentially reach out to him, see where he is coming from, 
but not to do so naively. I do not think anybody is going to do 
that. I think we are in a good position here. But it is an 
interesting development. Nobody really expected him to be 
elected, at the same time again the elusive Iranian moderate. 
We need to maintain the pressure that we are maintaining on the 
regime and make it very clear to them what our objectives are, 
number one, that they not develop a nuclear weapon.
    Senator Gillibrand. Thank you.
    Turning now to cyber, both of you have testified that you 
believe that cyber is a growing threat and a serious concern 
for our military and for our national security and for our 
economy. We have been working on a bipartisan basis on a bill 
called The Cyber Warrior Act--Senator Vitter and Senator Blunt 
are leading the charge for the Republican side--in order to 
create a National Guard unit that is dedicated solely to cyber 
defense of our Nation as a way to get some of our best and 
bravest from the private sector who are dedicated to the 
military and the defense of this country to be able to use 
their talents more efficiently, in a more cost efficient manner 
as well.
    Can I have your opinions on what the impact of creating 
these units would be with their dual status and whether that 
would be in the end better for our defense and for growing this 
talent in house?
    General Dempsey. I will go first. Again, this is one where 
the Vice has also been deeply involved.
    First of all, you have our commitment to seek to figure out 
what are the various roles in all the components of our 
military and all the branches of Service. Without making a firm 
commitment right now on that particular approach, I will say 
that each of the Service Chiefs is taking a look at it under 
the advice of our U.S. Cyber Command Commander and U.S. 
Strategic Command Commander.
    By the way, you say it is a growing concern. It is here 
right now. There is urgency to this and I think you understand 
that.
    We would have to understand what the cyber role would be 
for a guardsman. There really would be no role in a title 2 
authority. There is no title 2 authority for cyber. It is 
really title 10.
    But go ahead, Sandy.
    Admiral Winnefeld. I would say it has been an interesting 
idea that we have looked at and we are committed to looking at. 
We are growing our cyber force by a considerable number. It is 
probably the only part of our force that is going to grow under 
current budget conditions.
    We need this new force to do a number of things for us, 
principally to help us defend our own networks inside the 
Department of Defense to help defend the Nation against cyber 
attacks. Obviously, law enforcement, Department of Homeland 
Security (DHS) have the lead there, but we play an important 
role in assisting them.
    Then there is the potential for offensive cyber operations 
in support of a combatant commander if we end up finding 
ourselves in a war.
    Where the National Guard fits into those three niches is 
something we need to study and look at. We are short of money. 
It is going to cost a lot to develop this capability in the 
Guard, and it is not there all the time for us. Then again, I 
think you make a fair point that there is expertise out there 
to tap on.
    Senator Gillibrand. That we want to have.
    Admiral Winnefeld. I just think we need to look very 
closely, very soberly at whether this makes sense financially.
    Senator Gillibrand. I would like to work with you both on 
this issue.
    We have, obviously, been spending a lot of time on sexual 
assault in the military. It is something everyone cares deeply 
about solving. One of the things I want to get your thoughts on 
the military has had a change of position on its view towards 
Article 60, that we can actually take Article 60 authority 
outside the chain of command and still maintain good order and 
discipline, still maintain command climate, command control.
    Why do you think removing Article 30 would be different in 
any way? Because I would imagine that second legal decision 
would not have a differing impact than removing Article 60.
    General Dempsey. The approach to Article 60 was because we 
had put in place over time in our judicial system other 
mechanisms, military judges and prosecutors, and an appeal 
process that allowed us to consider changing the authorities of 
a convening authority to change a ruling after the fact. But 
that is, it seems to us, different than taking the actual 
offense out of the Uniform Code of Military Justice (UCMJ).
    Do you want to add anything to that?
    Admiral Winnefeld. I think the most important thing to me 
is to make sure that there is an active deterrent out there 
that somebody who is contemplating sexual assault knows that 
they are going to be caught, that they are going to be 
prosecuted, and if they are prosecuted, they are going to be 
punished. It is the same thing that has worked in the drug 
world for us and the like. It is our strong view that the 
commander is responsible for that.
    Senator Gillibrand. But I would argue that the commander is 
still responsible for that because keeping in a number of the 
articles like Article 134, other articles that are general 
crimes, you are still fundamentally responsible for command 
climate, good order, and discipline. For any type of infraction 
of any part of the UCMJ, the commander is responsible for. You 
have to set the climate where this assault and rape is not 
going to happen where they can not be retaliated against and 
where they will report.
    Admiral Winnefeld. I could not agree more.
    Senator Gillibrand. The only difference is the legal 
judgment, that weighing of evidence and facts, will now be done 
by a trained objective military prosecutor.
    Admiral Winnefeld. I would like to give you a couple of 
numbers on what the Army has discovered recently, peeling back 
the numbers on what a so-called objective observer might end up 
with.
    The Army has looked back over the last 2 years and has 
found 35 cases where a civilian district attorney (DA) refused 
to take a sexual assault case--refused to take the case. The 
chain of command in the military insisted that the case be 
taken inside the military chain of command. Of those 35 cases, 
there are 14 out there that are not yet resolved. They are 
still in the court system. There are actually 49. Of the 35 
complete, 25 resulted in a court martial conviction. That is a 
71 percent conviction rate. The civilian rate is around 18 to 
22 percent. So of those 71 percent that were convicted, 24 of 
the 25 got punitive discharges. They are doing prison time.
    If the Army had not taken those 49 cases and the 35 where 
we have achieved a conviction, those people would be walking 
the street right now. The victims would not have had the 
resolution that they deserved in this case. This was done 
inside the chain of command, the chain of command insisting 
that a prosecution be pursued, and it was pursued successfully. 
I worry that if we turn this over to somebody else, whether it 
is a civilian DA or a non-entity in the military, that they are 
going to make the same kind of decisions that those civilian 
prosecutors made. I worry that we are going to have fewer 
prosecutions if we take it outside the chain of command.
    Senator Gillibrand. We want prosecutions that are going to 
result in guilty verdicts, and weighing these kinds of evidence 
is very difficult. That is why being trained to know what kind 
of cases you can bring forward and win is so important.
    But, moreover, you may have helped a handful of victims. We 
are still having 23,000 victims who do not feel the system is 
strong enough, objective enough, and transparent enough to even 
report. If we are going to address the 23,000 cases as opposed 
to the handful where a judgment of a commander might have 
helped, we need to change the system.
    My time has expired.
    General Dempsey. By the way, thanks, Senator. I hope you 
know we actually embrace this discussion.
    Senator Gillibrand. Thank you for your service and 
thoughtfulness.
    Chairman Levin. Thank you, Senator Gillibrand.
    Senator Ayotte?
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank both of you for being here and your 
families for your distinguished service to our country.
    General Dempsey, I want to thank you for your recent visit 
to New Hampshire. It really meant a lot to our men and women in 
uniform, and they said to me after that it really said so much 
about your leadership to go hear from those on the ground. Also 
at our shipyard, our civilian workforce--they deeply 
appreciated it. So thank you.
    Yesterday I was deeply troubled by a report that came out 
from the Government Accountability Office (GAO) about the Joint 
Prisoner of War/Missing in Action (POW/MIA) Accounting Command 
(JPAC), and that report actually said that unfortunately the 
leadership weaknesses and fragmented organizational structure 
is undermining the important function of JPAC. Of course, with 
more than 83,000 of our country's heroes remaining missing or 
unaccounted for from past conflicts, including 49 from New 
Hampshire for Vietnam and Korea, I believe we have a moral 
obligation to those we have left behind.
    This follows up a recent Associated Press (AP) report that 
found that an internal study that was done at DOD found that 
this effort, JPAC, was so inept, mismanaged, and wasteful that 
it risked descending from dysfunction to total failure. There 
were allegations that this internal study had been suppressed 
by DOD.
    General Dempsey, what are we going to do about this and how 
are we going to make sure that we fulfill our responsibility to 
those who have served our country and have been left behind so 
that they understand that they are not forgotten?
    General Dempsey. First, Senator, thanks for the hospitality 
last week. I assure you I always get more than I give on those 
visits to soldiers, sailors, airmen, and marines, coast 
guardsmen, and all the components.
    This is a new report to us as well. I can tell you, though, 
that the Secretary of Defense, while on travel, called me up to 
make sure that I had been made aware of it and to tell me that 
when he got back and when I complete this process of hearings 
and office calls, that he wants to get to the bottom of it.
    I mean, it is so new, but it is so discouraging and moving 
rapidly toward disgraceful. I assure you we will get at it.
    We have a new commander out there, and I can also tell you 
that he is seized with this as well.
    Senator Ayotte. I have written the chairman and I hope that 
we could have, with the full committee, a hearing on this 
because I believe it is that important to get to the bottom of 
some of the issues that have been raised by this GAO report and 
the internal report.
    I would like to ask you, Chairman Dempsey, the chairman and 
the ranking member of this committee wrote to Secretary Hagel 
on May 2, 2013. We have heard testimony both in the Readiness 
and Management Support Subcommittee and every subcommittee 
within this committee about the impacts of sequestration. In 
that letter, the chairman asked you to produce, or the 
Department of Defense to produce, a package of reductions for 
the fiscal year 2014 defense budget that would be the most 
workable approach for meeting the $52 billion in reductions 
required by sequestration under the BCA.
    We did receive a response recently from Secretary Hagel, 
but it does not really answer our question on the specifics.
    Have you put together a contingency plan for the $52 
billion in reductions required by sequestration in 2014?
    General Dempsey. The Services, having received their fiscal 
guidance about 2 weeks ago, are preparing that contingency 
right now. It will be a contingency that addresses both the 
President's budget submission and also the sequestration.
    Senator Ayotte. We had asked for this in July. Can you give 
me a commitment as to when will this be produced to us, this 
committee, so that we can understand the impacts of 
sequestration and we can also share it with our colleagues 
about what it really means in terms of the impact of the 
readiness of our forces?
    Admiral Winnefeld. I can probably help.
    General Dempsey. Yes, go ahead.
    Admiral Winnefeld. It is a very fair question. The answer 
that came back was the first contours of what the fiscal year 
2014 execution would look like under those conditions.
    It is important for us to keep in mind that there are about 
five things the Service planners, budget planners, are having 
to go through right now. They are going through what 2014 is 
going to look like under the conditions that were asked for in 
the letter. They are finalizing what 2014 execution would look 
like under the President's budget. They are also having to 
develop two or three different scenarios for the fiscal year 
2015 to 2019 budget. These people are furloughed 1 day a week. 
So it is a little tough to produce fine detail of that quickly. 
But the Services have been given the task and they will have an 
execution plan before the first of October and you will have 
it.
    Senator Ayotte. We need it sooner. Let me just say that you 
can do all the planning you want for the President's budget, 
but it is pie in the sky right now. The reality is that the law 
is the sequestration, and until the American people understand 
and everyone here understands what the real impact of that is, 
that is why I am hoping that you will make that the priority.
    I know I do not have that much time, but I want to ask you, 
the Chairman and the Vice Chairman, about Russia. In 
particular, I saw a recent report that Russia is in violation 
of the Intermediate Range Nuclear Forces Treaty. Is that true?
    Admiral Winnefeld. That is something that we cannot address 
in an unclassified hearing, but I would be happy to get into a 
discussion with you in a more classified setting, the point 
being that we have very good verification methods in place. We 
watch this very closely. We believe that they are in compliance 
with the Strategic Arms Reduction Treaty (START), and I need to 
leave it at that in this setting.
    Senator Ayotte. Okay. I will follow up because I am not 
asking about the START treaty.
    Admiral Winnefeld. I understand.
    [The information referred to follows:]

    The administration is prepared to brief the Senator on the issues 
relating to the question.

    Senator Ayotte. The reason that I am asking this is because 
here is where we are with Russia, a postmortem conviction of 
Sergei Magnitsky--the human rights case--who was, of course, 
tortured and killed for bringing out corruption within the 
government. To put it in your face with the United States, they 
have not ruled out granting asylum to Edward Snowden. Just 
today there was a report that one of Putin's chief opponents, 
Navalny, a candidate for the mayor of Moscow, was convicted. It 
really reeks of using the judicial system for Putin to punish 
his opponents.
    When I look at that context, one thing that concerns me is 
that our posture with Russia--if they are in violation of their 
treaty obligations, that is an important issue.
    One final question, Admiral. The President recently 
announced that he would be considering further reductions to 
our nuclear arsenal. Do you believe that we should do that 
unilaterally?
    Admiral Winnefeld. Senator, the advice that we have given 
to the President is that we not do that unilaterally, that we 
do it as part of a negotiated package of reductions.
    Senator Ayotte. If there were going to be unilateral 
reductions, would you oppose those reductions?
    Admiral Winnefeld. I would not give that advice to the 
President that we do a unilateral reduction.
    Senator Ayotte. You would advise against a unilateral 
reduction in our nuclear deterrent?
    Admiral Winnefeld. We already have.
    Senator Ayotte. Okay. I appreciate that.
    General Dempsey. There are three things, Senator. There is 
the through negotiations, preserve the triad, and modernize the 
stockpile.
    Senator Ayotte. My time is up, but I think given the 
behavior of Russia, I think it is at best naive to think that 
we are going to be able to negotiate any kind of further 
reductions, which I would oppose. I do not think that is the 
right direction for the protection of this country. But in 
light of what I just described--and obviously, we cannot 
discuss it in this setting, but if we find out that they are in 
violation of other treaty obligations, coupled with their other 
behavior, I do not see how we can expect good faith 
negotiations from the Russians at the moment.
    Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your service to the Nation and to 
your families' service because it is evident you cannot do this 
alone.
    General Dempsey, one of your statutory duties is to provide 
your formal military advice on the strategic environment and 
military activities needed to address that environment through 
the Chairman's risk assessment. Given the current world 
environment, which seems to be changing minute by minute--
Senator Ayotte just detailed what has happened in the last 24 
hours with respect to the Russians--what changes would you make 
today to your risk assessment that you submitted in April?
    General Dempsey. Thanks, Senator.
    The first thing I think you have probably noticed is we 
changed the one we submitted in April. Previously it had been 
an accumulation of combatant commander requirements.
    By the way, this is to Senator Inhofe's point earlier. 
Since I have been Chairman over the past 2 years, the 
requirements that the combatant commanders have submitted have 
actually increased in U.S. Pacific Command, in CENTCOM, and in 
U.S. Africa Command notably. It is to the point about 
increasing risk, declining readiness.
    We changed it to try to align what we are doing with 
national security interests unprioritized, because that is not 
our responsibility to prioritize them, and we made an estimate 
of what we are doing across the globe that is being placed at 
risk. We also looked inside the Services at how the health of 
the force is evolving.
    In that document, I made mention of the fact that this 
document did not account for sequestration, and that once that 
became a reality, that I would have to revise my risk 
assessment. I will have to do so to align with the submission 
that Senator Ayotte just described.
    Senator Reed. Thank you very much, Chairman Dempsey.
    Admiral Winnefeld, my colleagues, particularly Senator 
Gillibrand, have done extraordinary service to the Nation and 
to the military by pointing out that despite years of effort, 
we have a significant sexual abuse problem in the military. We 
have to, as you both clearly indicated, not rhetorically but 
fundamentally respond to this.
    One aspect we focused on has been the judicial system. But 
some of my experience suggests that there are other levers that 
are critical to the climate, the command structure, the 
performance of the military, and they include evaluation, 
promotion, and retention. If we do not focus on those areas 
also, then we will never have the kind of force that we need 
and the trust that we need among the men and women who serve in 
that force.
    Can you comment on that? I know you and your colleagues 
have taken on a leadership role in dealing with this issue.
    Admiral Winnefeld. In terms of promotion and----
    Senator Reed. How do we make this so that every day someone 
thinks about their responsibilities? There is a judicial 
process out there, but this is what is expected of me to stay 
in the force, to succeed in the force, and to have the force 
succeed.
    Admiral Winnefeld. There are an enormous number of aspects 
of that answer, but I will touch on a few.
    The most important thing--and Senator Gillibrand touched on 
this--is the command climate that we hold commanders 
responsible for establishing that makes the likelihood of a 
sexual assault drop down hopefully to zero. There are a number 
of aspects. It is about teaching people what a heinous crime 
this is. It is about reporting it if you see it. It is about 
intervening if you see it about to happen, a whole host of 
measures that commanders must take to establish the climate 
inside their commands. We need to hold commanders accountable 
for establishing that climate, and we intend to. That is one of 
the reasons why the command climate surveys now are going to be 
seen, which we normally have not done, by the next echelon up 
in the chain of command. If that next echelon up detects a 
problem that the climate is not where it needs to be, then 
action can be taken and it can be even entered into somebody's 
evaluation as sort of a down strike, as you will.
    In keeping with the prevention and the advocacy, 
investigation, accountability, and assessment pieces of what we 
are trying to do to take on this pernicious issue, it is 
absolutely vital that the climate piece of it come to the 
forefront and that we hold commanders responsible for that.
    Senator Reed. Thank you very much.
    General Dempsey, can you comment on the current level of 
cooperation between the Government in Kabul and NATO 
International Security Assistance Force command? Every day 
there seems to be another example of friction rather than 
harmony.
    General Dempsey. The relationship with notably the 
President of Afghanistan is ``scratchy'' I think is probably as 
good a word as I could describe it. He is addressing what he 
describes as issues of sovereignty, and we are trying to close 
the gap on what an enduring presence and commitment might look 
like.
    Senator Reed. Thank you.
    Admiral Winnefeld, in terms of the recent discovery of 
contraband coming out of Cuba to North Korea, do you have a 
rough assessment at this juncture? Was it the Cubans trying 
simply to rehabilitate their equipment, or were they trying to 
get equipment to North Korea so the North Koreans could use it?
    Admiral Winnefeld. It is a little hard to tell at this 
point. The Intelligence Community is still evaluating that. It 
would be easy to come to the conclusion that under the guise of 
returning equipment to North Korea for repair, that in fact 
these are jet engines and missiles that would be going to North 
Korea to replenish their stocks or what have you.
    In either case, it clearly exposes North Korea's willing 
defiance of the international community and United Nations 
(U.N.) Security Council's resolution and the like. We are very 
glad that the Panamanians discovered this so that we can once 
more expose to the world the cynical behavior of the North 
Korean regime.
    Senator Reed. Thank you. Thank you, General.
    Chairman Levin. Thank you, Senator Reed.
    Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    Thank you both for your service.
    Chairman Dempsey, the Russian President said I think a 
couple of days ago that if he thought hurting U.S.-Russian 
relationships would be a consequence of granting Snowden 
asylum, he would not do it. What would your advice be to the 
Russian President about granting Snowden asylum?
    General Dempsey. I think that there would be consequences 
across all of our relationships, military, economic----
    Senator Graham. It would be damaging and not do it. Would 
that be your advice?
    General Dempsey. I think it would be, sir.
    Senator Graham. Okay, thank you very much.
    The Prime Minister of Israel was on national television, on 
Face the Nation Sunday, and he said the following things about 
Iran. There is a new president in Iran. He believes he is 
criticizing his predecessor for being a wolf in wolf's 
clothing. His strategy is be a wolf in sheep's clothing, smile, 
and build a bomb.
    Admiral Winnefeld, do you agree with that analysis?
    Admiral Winnefeld. As I mentioned earlier, I certainly 
would agree that we are for the elusive----
    Senator Graham. Is there any doubt in your mind that this 
guy is actually a moderate?
    Admiral Winnefeld. We are looking for the elusive Iranian 
moderate.
    Senator Graham. Now, my question to you--and this will 
determine how I vote for you. Do you believe the current 
President of Iran is a moderate?
    Admiral Winnefeld. He does not have a history of being a 
moderate, no, sir.
    Senator Graham. I will take that as no.
    The United States should ratchet up the sanctions and make 
it clear to Iran that they will not get away with it, and if 
sanctions do not work, then they have to know that you will be 
prepared--us, the United States--to take military action. That 
is the only thing that will get their attention. Do you agree 
with the Israeli Prime Minister about the threat of military 
force against the Iranian nuclear program may be the only thing 
to get their attention, General Dempsey?
    General Dempsey. That has been our approach all along, sir. 
So yes.
    Senator Graham. So great. We are all on the same sheet of 
paper there, that if they do not believe we are going to hit 
them, they are going to move.
    Here is what he said about all the problems in the Mideast 
summed up this way. All the problems that we have, however 
important, will be dwarfed by this messianistic, apocalyptic, 
extreme regime that would have an atomic bomb. It would make a 
terrible, a catastrophic change for the world and for the 
United States.
    Do you agree with his assessment of how important it is not 
to allow the Iranians to get a nuclear weapon?
    General Dempsey. I do and that is what we have said.
    Senator Graham. Great.
    All right. Now, as to Afghanistan, the current commander 
suggested that a 12,000-member force, two-thirds being United 
States, the other 4,000 being NATO, not counting American 
special forces troops SOF capability, would be a reasonable 
number to leave behind in terms of a follow-on force. Does that 
make sense to you? Is he in the ballpark? Does that make sense?
    General Dempsey. He is and we have said so at NATO in 
various sessions.
    Senator Graham. Thank you very much. That is encouraging.
    Do you agree with me that it would be a wise investment to 
keep the Afghan army at 352,000 at least for a few more years 
rather than draw them down to 232,000?
    General Dempsey. I do.
    Senator Graham. Thank you.
    Syria. Is Assad winning?
    General Dempsey. Currently the tide seems to have shifted 
in his favor.
    Senator Graham. Do you agree with that, Admiral Winnefeld?
    Admiral Winnefeld. I would say specifically the tide has 
shifted in his favor in the central and western part of the 
country. It is very fragile in the north, and they are hanging 
in there.
    Senator Graham. Is he winning overall or not?
    Admiral Winnefeld. If I were to have to pick who is 
winning, it would be the regime, but not by much right now.
    Senator Graham. Okay. All right. So the regime is winning 
but not by much.
    Could they be winning without Russia's help?
    Admiral Winnefeld. I think the most important help they are 
getting, sir, is Iranian and Hezbollah. I do not know whether 
Russia's help is vital but it is certainly helping them.
    Senator Graham. General Dempsey, how would you evaluate the 
significance of Russia's help to Assad?
    General Dempsey. Through their foreign military sales, they 
are arming--
    Senator Graham. Let me put it this way. If the Russians 
said we want you gone tomorrow, would it matter to Assad?
    General Dempsey. Absolutely.
    Senator Graham. It would be a gamechanger, would it not, 
Admiral Winnefeld?
    Admiral Winnefeld. I certainly think so, but Assad is going 
to fight to the death I think.
    Senator Graham. Do you agree with me that if Russia said to 
Assad we no longer support you, it would be the ultimate 
gamechanger?
    Admiral Winnefeld. It would be a very important 
gamechanger, absolutely.
    Senator Graham. Thank you. Do you see Russia doing that?
    Admiral Winnefeld. No, sir.
    Senator Graham. If he stays versus him going, what is the 
most catastrophic outcome for us? If he wins over time and he 
does not leave versus having to deal with the fact that we 
kicked him out because we said he had to go, what is worse for 
us? Him staying or going?
    General Dempsey. We have said that it is the Nation's 
policy that Assad must go.
    Senator Graham. So that means it is worse for us for him to 
stay and we not be able to achieve our policy. Do you agree 
with that?
    General Dempsey. That is my interpretation.
    Senator Graham. Do you agree with that, Admiral Winnefeld?
    Admiral Winnefeld. Yes, sir, I do.
    Senator Graham. Will he be in power next year if nothing 
changes? Your best military advice. If we keep just where we 
are at, Iran is helping him, do you agree they are all in in 
helping Assad?
    General Dempsey. I do.
    Senator Graham. Do you agree that Hezbollah is helping 
Assad?
    General Dempsey. Absolutely.
    Senator Graham. Do you agree that Russia is helping Assad?
    General Dempsey. Yes.
    Senator Graham. If nothing changes, if we do not change our 
game, will he be in power a year from now?
    General Dempsey. I think likely so.
    Senator Graham. What would that mean for the King of 
Jordan? Will he be in power a year from now?
    General Dempsey. As I have said, I have met with him and he 
is concerned that the demographics in his nation----
    Senator Graham. Right. You are dead right. He told me he 
did not think he would be here in another year because there 
will be a million Syrian refugees and it is destabilizing 
Jordan. Do you agree with that?
    General Dempsey. That is his concern. That is right.
    Senator Graham. What would that mean for the region and us 
if the King of Jordan is gone a year from now and Assad is in 
power a year from now? Would that be a good thing or a bad 
thing?
    General Dempsey. He is a strong ally. It would be a bad 
thing.
    Senator Graham. It would be a horrible thing for the 
Mideast, would it not?
    General Dempsey. Yes.
    Senator Graham. If this war in Syria keeps going on and 
Assad is still in power a year from now, what effect would it 
have on Iraq?
    General Dempsey. It is already destabilizing western Iraq.
    Senator Graham. Iraq would just begin to fall apart at a 
faster rate--do you agree with that--because it is 
destabilizing the country?
    General Dempsey. That would certainly be a possible 
scenario.
    Senator Graham. From the Israelis' point of view, the 
likelihood of Hezbollah getting Russian-made advanced weapons, 
if he is still in power a year from now--does that go up or 
down?
    General Dempsey. From the Israeli standpoint, up.
    Senator Graham. Yes. From Israel's standpoint, one of the 
worst nightmares for them, short of an Iranian nuclear weapon, 
would be Hezbollah getting advanced weapons sold to Assad by 
Russia, and that likelihood would go up if he is still in power 
a year from now.
    General Dempsey. Yes.
    Senator Graham. We will talk in the second round about 
sequestration. Thank you both for your answers.
    Chairman Levin. If we can finish the first round by noon at 
least, there would be a very brief second round. That is my 
current intention, which I have shared with the ranking member.
    Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    Just when I think we have made real progress on wartime 
contracting, something happens and I realize that we have still 
miles to go before we really have a handle on this.
    The latest incident that has come to my attention is a $34 
million military base, Leatherneck, in Afghanistan. When the 
marines on the ground found out this was going to be built, 
they sent the word up they do not need it, do not want it. That 
was in May 2010. In February 2011, contracts were issued, and 
the building was built.
    Now we know it is never going to be occupied, probably 
going to be demolished because it was done according to U.S. 
wiring standards. For the Afghanistan army to take it over, for 
the national forces there to take it over, it would be quite an 
investment for them to convert the building for their use.
    I understand an investigation is ongoing. I questioned Mr. 
Jenman about this the other day. But I need to hear from you, 
General Dempsey, that you are committed to getting to the 
bottom of this because if we do not fix accountability in this 
instance, whoever pulled the trigger on that expenditure really 
needs to be disciplined. In my opinion, they should be fired 
because we have to start sending a signal that when the people 
are saying do not build it, it is a waste of money, that it 
does not get built. Are you aware of this situation?
    General Dempsey. Absolutely, Senator. You have my 
commitment that we will get to the bottom of it.
    If I could share just a bit of good news we have--so this 
one was not caught, but we have de-obligated about $1.3 billion 
in contracting for U.S. Forces Afghanistan and a similar 
amount, probably twice that amount, for the Afghan security 
forces.
    Senator McCaskill. That is good. I appreciate that very 
much.
    There has been discussion around military sexual assault 
that our allies have gone to a different system. The reason 
that this was talked about was in the context that Canada and 
Europe had gone to a different system in order to provide more 
protection for victims. We have had a chance now to take a 
really close look at those countries and what happened, and it 
is my understanding those changes in their system resulted from 
a concern that there was not adequate due process protections 
for perpetrators. Is that your understanding as well, General 
Dempsey?
    General Dempsey. That is correct. Based on our last hearing 
on the subject, we have done a lot of research into why our 
allies, the five other nations, went that path, and it is not 
just because they wanted to protect the accused, but they were 
also mandated to do it by human rights courts in the European 
Union.
    Senator McCaskill. The other argument that is being made 
about leaving this in the hand of just prosecutors, civilian 
and/or Judge Advocate General (JAG) prosecutors, is that this 
would increase reporting. I have had an opportunity to look at 
the numbers. In Canada, we actually have 176 in 2007, 166 in 
2008, 166 in 2009, 176 in 2010. I looked at the numbers in the 
United Kingdom. Their numbers have actually gone down over the 
last several years in terms of reports from 54 to 40 to 40. In 
Australia, they have been stable at 82, 86, 84 over the last 
several years.
    In Israel, there had been a fact about reporting going up 
when they changed part of their system when it related to 
lesser sexual offenses a few years ago. There was testimony 
about their reporting going up 80 percent. If you look back at 
the numbers--now, these are sex-related offenses total in the 
military. So everybody gets an understanding of the difference 
between the enormity of the challenges in our military and what 
they are looking at in Israel, 26 in 2009, 20 in 2010, 14 in 
2011, and 27 in 2012. So yes, there is an 80 percent increase 
when they changed this between 2011 and 2012, but they only got 
back to the numbers that they had a few years previously before 
the change was made.
    Are you all aware in the research you have done that 
changing the system has resulted in an increased reporting 
anywhere in the world?
    General Dempsey. There is no analytical evidence nor 
anecdotal evidence that it has increased reporting. 
Furthermore, what my counterparts tell me is it has slowed the 
system down.
    Senator McCaskill. You mentioned, Admiral Winnefeld, in 
your testimony earlier that you all have taken a look at 
prosecutors' decisions in isolation. I have some knowledge of 
this. There was discipline meted out in my office when I found 
out that prosecutors in our warrant desk, which was our intake 
desk, were getting lobbied by some of the trial prosecutors on 
their decisions because they did not want any losers. They did 
not want them to take cases that were going to reflect poorly 
on their won/lost record because when you are a prosecutor, 
there is a won/lost record. When you take a case to trial, you 
either win or you lose. So your status among your peers and in 
some instances your upward mobility in your job could depend on 
just your conviction rate. When you isolate them with this 
decision, then there certainly could be instances where you 
would have a prosecutor that did not want to take a close one, 
that did not want a ``he said/she said''.
    Do you have additional information that you can share with 
this committee in terms of numbers of the number of times that 
civilian prosecutors have said no, military prosecutors have 
said no, but there are victims out there today that have had 
justice because the commander said yes?
    Admiral Winnefeld. I do, and I will give you a couple of 
examples. The Marine Corps has had 28 cases. They have looked 
back to 2010, 28 cases where civilian prosecutors declined to 
take the case. Of those, 16 of them the Marine Corps was able 
to obtain a conviction at court martial, 57 percent. So those 
are 16 perpetrators that are no longer walking the street and 
16 victims who received justice who would not have received it 
otherwise.
    The more startling numbers are from the Army, and I will 
repeat them. The Army has looked at 49 cases in the last 2 
years. Actually 14 of them are still in process. We do not know 
what is going to happen with those cases. They are still in the 
trial system. Then 35 of them have been completed. Of those, 25 
or 71 percent resulted in a conviction at a court martial. Two 
additional ones were plea bargained down to a punitive 
discharge. That takes the number up to 77 percent of these 
cases that civilian prosecutors would not take that resulted in 
some serious action taken against a perpetrator. There are some 
that were acquitted, understandably. Most of the ones who were 
found guilty have done hard time, are doing hard time, and have 
been given a punitive discharge from the military. These were 
all done inside the chain of command.
    I would add, Senator McCaskill, some of these are very 
heinous cases that the DAs would not take. One of them was a 
10-year-old autistic girl who was sexually assaulted. We took 
the case. The commander insisted on it, and a conviction was 
obtained.
    Senator McCaskill. This is hard. We all have the same goal. 
But I do want to say, as I close this questioning, that anybody 
who characterizes me as someone who is protecting the Pentagon, 
that somehow I am in cahoots with the Pentagon trying to hurt 
sexual assault victims, with all due respect to you guys, I 
think you are terrific, but there is nobody who will be further 
in front of the line to kick you until you are senseless if we 
do not get this problem under control. This is not victims 
versus the Pentagon. Anybody who is characterizing that is 
doing a disservice to victims and is doing a disservice to the 
military and doing a disservice to the members of this 
committee who have spent hours trying to find the right way to 
make sure that we prosecute more cases effectively within the 
military.
    I thank you both very much.
    Admiral Winnefeld. Mr. Chairman, if I can take 10 seconds?
    Senator McCaskill. Yes.
    Admiral Winnefeld. I would like to just reinforce what 
General Dempsey said a moment ago, that we actually are very 
grateful for the attention that the entire committee has given 
to this. It has been very helpful to us.
    I also want to say that I look forward to our next chance 
to have you and other people with prosecutorial experience over 
to the Pentagon, as we have done before, and get your thoughts, 
show you what we are doing, get your expertise in there. I 
think that is a very productive opportunity.
    Senator McCaskill. You do not need to worry about me being 
invited. As many of your JAGs will know, I call them. I am not 
reaching out because you guys are calling plays on this. I was 
just infuriated at the article that was written that this is 
somehow you guys pulling strings over here telling us what to 
do. Nothing could be further from the truth. I appreciate both 
of you and your commitment to this, but believe me, we are not 
going anywhere.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you. If I may just take 30 seconds 
before Senator Chambliss speaks, there was an implication in an 
article in Politico that the amendment which was adopted by 
this committee was somehow or other cleared or shared with the 
Pentagon. That is not true. Are you aware of that?
    Admiral Winnefeld. Not that I am aware of.
    General Dempsey. No.
    Chairman Levin. A two-page article suggesting that somehow 
or other the Pentagon screened or impacted the language which 
we offered in a public session in this committee that led to 
the adoption of a bipartisan amendment, part of an article that 
suggested that somehow or other the Pentagon wrote something or 
screened something.
    What they did, very properly so, was asked by the 
subcommittee that adopted language on this subject for its 
reaction. We do that all the time before the bill is marked up. 
The subcommittee then wrote its language under Senator 
Gillibrand's leadership. Wrote its language after consultation 
appropriately with the Pentagon. Totally appropriately. But the 
amendment that was adopted by this committee on a bipartisan 
vote was not shared with the Pentagon.
    I do not know if the folks at Politico that wrote that two-
page article implying to the contrary want to correct their 
article. But in fairness, I believe they should.
    Senator Nelson. Mr. Chairman, may I just say on a point of 
personal privilege on behalf of Senator McCaskill, the 
implication that she is bought off by the Pentagon--she has 
been the spark plug in this whole thing from day one. I want 
her to know how much I appreciate that.
    Chairman Levin. Her prosecutorial experience, I must say, 
is invaluable to this committee, not just on this subject but 
on a lot of other subjects, including this whole contracting 
problem that she has delved into with such tenacity and effect.
    Senator Chambliss?
    Senator Chambliss. Thanks, Mr. Chairman, and thanks for 
your leadership and your impassioned leadership on this issue 
of sexual assault. I am not going to go into questioning. I 
think it has been thoroughly vetted, gentlemen. We know where 
you are and that you are trying to rectify a very serious 
situation. But I think you have a thorough understanding that 
this committee, as a total committee, is upset with what is 
going on in that realm in every branch of our military. We have 
to fix it. The system is broken. The chairman's leadership on 
this and, as he said, in a bipartisan way I think addresses it 
fairly. We will look forward to that debate on the floor.
    General Dempsey, in your answers to advance questions from 
the committee, you said, ``We are at risk of strategy and 
solvency if sequestration is implemented as currently presented 
by law.'' The words ``strategy and solvency'' sounds like 
sending unprepared troops into combat and not being able to 
take action against threats to national security and not being 
able to assist allies and partners in unstable regions. Is that 
what you meant?
    General Dempsey. Yes, sir. Maybe even more simply, it is 
the mismatch of aspirations and abilities.
    Senator Chambliss. I want to go back, General Dempsey, to 
Syria. Again, it has been thoroughly talked about here, but I 
am a little bit confused. I heard your response to Senator 
McCain's questioning. Here is the way I see where we are with 
respect to Syria right now and your participation in the 
process.
    You have been in place about 2 years, as we all know. 
During that 2 years, the conflict in Syria has been going on 
the entire time. There has been virtually an uncontrolled 
slaughter going on inside of Syria, and I note that even the 
President's nominee to be Ambassador to the United Nations said 
yesterday in her hearing that the failure of the U.N. Security 
Council to respond to the slaughter in Syria is a disgrace that 
history will judge harshly. I agree with that. But it is also a 
fact that the United States has kind of sat by and watched what 
is happening over there and we have really had our hands behind 
our back.
    Now, you have been in place for 2 years. You have been the 
principal military advisor to the President on this issue and 
others. Has the President followed your advice on the 
involvement of the United States in Syria?
    General Dempsey. The President has asked for options, and 
we have provided them. On the issues, has he followed my 
advice, the issue is whether--there are two issues at work. 
Could we and should we? I have advised him on ``could we''. We 
have not gotten into a conversation about ``should we'' except 
as it relates to the current path, which is one focused 
primarily on building a moderate opposition.
    Senator Chambliss. I am taking that to mean then that the 
President has listened to your options but apparently you have 
not picked a side or been forceful in what you think the 
President ought to do. Am I correct?
    General Dempsey. Sir, let me talk about the role of the 
Chairman because it keeps coming back to that. It is my 
responsibility to provide options about the use of force and 
how they would contribute to a broader strategy not in 
isolation.
    I am reluctant to--in fact, I am unwilling actually to 
discuss my advice to the President on whether we should use 
force while that deliberation is ongoing.
    To the point about what is my responsibility to this 
committee, my responsibility to this committee is to have the 
same kind of conversations with you as we have on options and 
on what the military instrument of power could do in the 
context of a broader strategy.
    But the decision on whether to use force is fundamentally a 
political decision and one that is being deliberated even 
frequently with regard to Syria. But for me to advocate it 
would absolutely put me in what I have deemed to be an 
inappropriate position with both the President and this 
committee.
    Senator Chambliss. Did you advocate for a no-fly zone or 
against a no-fly zone?
    General Dempsey. That is the point, sir. I have not 
advocated nor opposed any of those options. I have explained 
what they would do to the situation.
    Senator Chambliss. Here is my dilemma, General. You are the 
top military advisor to the President. Syria is the most 
significant international military conflict going on today. It 
has the capability of providing future unrest to that part of 
the world that may be permanent. There has been no change in 
U.S. policy from a military standpoint in Syria during your 2 
years.
    Now, if we approve you for another 2 years, confirm you for 
another 2 years, then is there going to be a change in policy 
in Syria over the next 2 years, or are we just going to keep 
doing what we are doing, which is watching innocent people 
slaughtered?
    General Dempsey. Senator, I would hate to take that burden 
entirely on myself to determine whether the situation in Syria 
will change over the next 2 years. You can be sure that as we 
develop options to be considered in military instrument of 
power, that I will articulate whether I think they will be 
effective, what are the risks involved to U.S. forces, what are 
the opportunity costs.
    Let me tell you what has changed in the last 2 years. We 
are far more involved on the Korean Peninsula at higher states 
of readiness. We are far more involved in the Gulf at higher 
states of readiness. We continue to manage the conflict in 
Afghanistan. There are some significant risks we are accruing 
while we also are engaged in trying to determine how to match 
ends, ways, and means in the face of sequestration.
    Senator Chambliss. In closing, let me just say that 
Secretary Hagel in a recent announcement directed a 20 percent 
cut in the number of top ranking officers and senior civilians 
at the Pentagon by 2019. I applaud that move. I think that is 
something that has to be done. We look forward to as a 
committee to working with you, assuming you are confirmed, to 
carrying out that directive by the Secretary. It is not going 
to be easy. It is not going to be pleasant, but everybody has 
to share in this pain, including our top ranking folks.
    General Dempsey. No question. If I could just respond very 
briefly. There are a couple of things we should do, Senator, 
whether sequestration was hanging over our heads or not. One of 
them is to make ourselves more efficient at the institutional 
level. The other is compensation and health care, and we are 
going to need your help to do that.
    Admiral Winnefeld. If I could add just 1 second. I do not 
want to leave the committee with the impression that has been 
in the press that it is only the top brass that are being 
reduced by 20 percent. It is the entire staffs that are being 
reduced by 20 percent. This is a significant cut and we offered 
it. We believe that we have to become more efficient and never 
waste a crisis. It is the entire staff, not only the Joint 
Staff but the Office of the Secretary of Defense staff, but 
also the combatant commanders' staffs we are going to trim by 
20 percent over the next 5 years.
    Chairman Levin. Just if I heard you correctly, it is not 
just that you support it but that you offered it. Is that 
correct?
    Admiral Winnefeld. Yes, sir.
    Chairman Levin. Thank you.
    Thank you, Senator Chambliss.
    Senator Hagan?
    Senator Hagan. Thank you, Mr. Chairman.
    General Dempsey, Admiral Winnefeld, thank you very much for 
your service to our country and for being here today.
    General Dempsey, on just this past Monday, I had the great 
pleasure to be at the Fleet Readiness Center-East at Marine 
Corps Air Station Cherry Point to welcome the arrival of the 
first F-35B that was scheduled for modifications. I know how 
important the F-35B is to the Marine Corps, to our national 
security, and to the local North Carolina communities that 
support it. This was certainly reiterated to me during my visit 
on Monday.
    Like you and like the members of this committee, I am very 
worried about the damage that sequestration is already doing to 
the Department and to our national security. Most of the 
members of the civilian workforce that I met with on Monday had 
just had their first furlough day the Friday before, which I 
think is a harsh reminder of Congress' inability to find a 
solution here. We actually have 19,000 civilians working for 
DOD that are on furlough in North Carolina.
    Please know that I remain dedicated to finding a balanced 
bipartisan solution to sequestration, and what I really worry 
about are those in Washington who underestimate the damage that 
sequestration will have if this is allowed to continue in 
fiscal year 2014 and beyond. I think it is important that 
Congress and the people hear directly from senior leaders like 
yourself about the impact that this is going to have if it is 
allowed to continue.
    Can you just give a few examples of the impact that it 
might have on the F-35B and other modernization programs, as 
well as on the local communities that support them?
    General Dempsey. Yes, let me give you a very brief, 
generalized answer. The Vice Chairman sits on most of the 
meetings where the tradeoffs are made in things like 
modernization.
    But the point is that, as I said, it is too far and too 
fast. At the beginning of this period, we will suffer most 
prominently in readiness and in modernization. We have to take 
money where we can get it. Later on, as the force shrinks, we 
will be more ready but we will be less modernized than we think 
we need to be, and in my view we will have forces inadequate to 
achieve the strategy as currently conceived and we will have to 
look back at how we might change our strategy.
    Admiral Winnefeld. Specifically on the F-35, our first 
priority right now is to finish the development of that 
program, and we requested some money in the reprogramming 
authority to get that done in fiscal year 2013 to keep the 
sustainable technology development effort on track.
    Because of the importance of this program, we are doing 
everything we can to protect the numbers as the Department 
finalizes the lots 6 and 7 prices, and I do not want to stray 
outside of my authority. This is really in the Under Secretary 
of Defense for AT&L lane. But we are committed to this program, 
and we really want to ramp up production as soon as we can to 
get the economies of scale that we need in order to make this a 
productive program. The F-35 is a very important program to us. 
There is no question about it.
    Senator Hagan. It is also my understanding on sequestration 
that the DOD civilian supervisors, they received notice just 
recently that if they have knowledge that the employees that 
report to them work more than the allotted hours during their 
furloughs, even when it is voluntary on their part, that those 
supervisors, these civilian supervisors, are subject to fines 
up to $5,000 and potential jail time. When I realized that 
there are legal guidelines, I know, that have to be followed. 
We certainly do not want to have furloughed employees to have 
to involuntarily work without pay, but to me this seems to go 
too far. I am troubled that these supervisors could face these 
unbelievable penalties because they have motivated workers who 
really are dedicated to the national security of our country 
despite the furloughs, and we cannot fault them when they want 
to continue their mission, once again, because Congress has not 
acted.
    What are your thoughts on this matter? How does one find 
the right balance here?
    Admiral Winnefeld. First of all, Senator, I would make a 
shout-out to our civilian employees in the Department who are 
fantastic. These are people who under ordinary conditions work 
extra hours because they believe so much in what they are 
doing, and they are just tremendous.
    I am not a lawyer and I do not have the legal background in 
this. I believe that the restrictions you are referring to when 
you are furloughed are legal restrictions, and I think we are 
just trying to stay within the letter of the law.
    But I could not agree with you more on the overall 
principle and the sentiment that these are American patriots 
who want to do the best they can for their country. We are 
cutting out a day's pay and they still want to do work for us. 
I mean, what more can you ask for from these great folks?
    So the sooner we can resolve this, the better. I know the 
Department is working hard, if we can, to reduce the number of 
furlough days this year. There are no guarantees. The 
comptroller is working on that. But it is a real tragic 
situation for these great Americans.
    Senator Hagan. Even these legal ramifications, they are not 
supposed to even look at the BlackBerries on the days of 
furlough.
    The previous two quadrennial defense reviews have mandated 
significant growth in our Special Operations Forces (SOF) and 
enablers that directly support their operations. Admiral 
Winnefeld, in response to the committee's prehearing policy 
questions, you said given the financial downturn that we face, 
we must balance the need for soft capabilities with our need to 
address other capability demands in light of increased 
budgetary pressures.
    Do you believe that previously directed growth in the size 
of SOF should be retained despite the current budgetary 
pressures, and how should special operations capabilities be 
prioritized compared to the other capability demands that you 
referenced?
    Admiral Winnefeld. I have to be quite honest in telling you 
that if we get into the full BCA caps, the full sequester, what 
we call ``sequester forever'' in the Department, that we are 
probably going to have to level off SOF growth because there 
are so many other programs that are going to be shrinking in 
size. It is sort of the philosophy if you are level, then you 
are doing pretty well in this budget environment. If you are 
growing, it is really unusual. The only thing I know of that 
will grow will be the cyber forces, and everything else is 
going to be coming down in size. I think keeping it in 
perspective that leveling off SOF is probably about as good as 
we can do if we get to the full BCA cuts.
    Senator Hagan. Even with the demands that we see around the 
world today?
    Admiral Winnefeld. Even with the demands. Our SOFs are 
fantastic. They are doing very important work around the world, 
no question. We have a considerable amount of SOF forces in 
Afghanistan doing counterinsurgency. That will end at the end 
of 2014. We were hoping to take that capacity and bring it home 
and do a couple of important things with it. One is to rest the 
force a little bit. These folks have been going very hard for 
the last decade. Another would be to enhance our building 
partnership capacity efforts across the world. We certainly 
want to rest the force. We may have to trim back a little bit 
on the building partnership capacity just because of the budget 
cuts. Again, you are pretty lucky if you are only leveling off 
under these circumstances.
    Senator Hagan. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    General Dempsey and Admiral Winnefeld, thank you both very 
much for your service to this country and for your willingness 
to continue to serve under what are very difficult times.
    General Dempsey, I very much appreciate your coming to New 
Hampshire and your visiting both Pease and our National Guard 
and the Portsmouth Naval Shipyard and meeting with a number of 
the businesses in New Hampshire that help make up part of the 
great defense industrial base we have in this country.
    Many people on the committee have expressed their concerns 
about sequestration. I know it is something that you both care 
very much about. One of the things that we heard from the 
businesses in the meeting that you had in New Hampshire was 
their concern about the uncertainty and what that means in 
terms of their future ability to provide the support that our 
military needs in order to do their job.
    I wonder if you could speak to whether this is something 
you are hearing from other parts of the country and then how 
concerned you are that continuing cuts from sequestration might 
have a very damaging impact on the defense industrial base in 
this country.
    General Dempsey. Thank you, Senator.
    What I found most interesting in that roundtable were two 
things. The big corporations--I will not name names, but the 
big corporations have enough flexibility that they can kind of 
weather the storm and are likely to still be there when we need 
them. It is the small businesses who do not have that kind of 
flexibility who I think we risk losing in two ways. One is I 
suspect they will look--well, they said it. They are going to 
look increasingly overseas. The second thing they said was that 
their ability to innovate is being reduced. So we are losing in 
several ways that I think could have a long-term negative 
effect.
    Senator Shaheen. Thank you.
    The other thing you have both talked about is the 
importance of the people who serve this country, both who serve 
actively in the Armed Forces, as well as those people who 
support your mission in the civilian capacity. One of the 
concerns that I have had is relative to the workers that we 
have who have the degrees in the science, technology, 
engineering, and math fields.
    Looking at the statistics for the people we will need to do 
the work of our military and its support in the future, the 
statistics do not look very good because the average age of an 
aerospace worker in the industry is 44. Also, 26 percent of the 
aerospace workforce became eligible for retirement in 2008. 
Meanwhile, 50 percent of the Navy's science and technology 
professionals will be retirement eligible by 2020. Those 
statistics go on.
    Can either of you speak to concerns that you have about how 
sequestration might be affecting our ability to recruit the 
people who have the degrees and the skills that we are going to 
need in the future? If we are looking at sequestration not just 
in 2013 but 2014, 2015, 2016, for the next 9 years, what does 
that do to our civilian workforce that supports your mission?
    General Dempsey. I will ask the Vice to respond in a moment 
here. But reflecting back to the trip to the Portsmouth Naval 
Yard, one of the other things I was unaware of was the 
apprenticeship program where they take some of the folks with 
the skill set that you described--30 of them, as I remember, 
some significant number--from incredible schools in the 
Northeast notably and they build into them this passion that I 
saw in the workforce there in support of the U.S. Navy and, in 
fact, in support of the Coast Guard as well. It is going to be 
simply a matter of mathematics. They are going to do less of 
that. I think we will lose some of those.
    Admiral Winnefeld. Fundamentally, the real challenge we 
have under the worst sequester scenario is the steepness of 
this cut, and what we have found over time and we understand 
very well this time around is that it is very hard to get force 
structure out quickly. Force structure meaning people. We 
cannot get people out fast enough. What that means is the only 
other levers you have are readiness and modernization. 
Readiness and modernization are very technical things. So we 
will be jettisoning basically a number of modernization 
programs or vastly trimming them down, and we will be reducing 
readiness which includes depot work and that sort of stuff 
which is also technical. I worry about that.
    The other thing is that as we get smaller, the tendency 
under the rules we have is that sort of the last person in is 
the first person out. That is our seed corn, all these young, 
technically adept folks that are thinking of coming in or who 
are already in. If they are first to go, we are going to lose 
them. Then we are going to have the effects that you talked 
about where we have a force that stays and retires and there is 
nothing to backfill them. It really is something we have to 
watch closely. I know Frank Kendall is worried about it. I know 
Ash Carter is worried about it. It is something we have to be 
very mindful of as we move forward.
    Senator Shaheen. Thank you. I certainly share that concern.
    Let me ask you both. One of the things that Senator McCain 
and I have worked on is language both in the immigration reform 
bill that passed the Senate, as well as in the National Defense 
Authorization Act that this committee has done, would deal with 
the number of Afghans and Iraqis who have been helpful to the 
United States and the international force who are concerned 
about their safety once we get past 2014 and the NATO force 
withdraws.
    I wonder if you could talk about how concerned you are 
about that and what kind of message it would send to other 
people in the future who might be willing to cooperate with us 
in these kinds of conflicts if we are not able to help provide 
safety for those people who have cooperated.
    General Dempsey. Having lived with those men and women, I 
strongly support the effort. But let me turn it over to the 
Vice who has been tracking it most closely.
    Admiral Winnefeld. Just to give you a sense, actually 
yesterday we had a deputies committee meeting that I was unable 
to attend but sent someone on this exact issue, special 
immigrant visas and the like to get these folks in who have 
really literally risked their lives to enable our operations in 
Iraq and Afghanistan. It has the attention of the National 
Security staff. It has our attention, and we will continue to 
push it in the right direction.
    I would just say if you hear anything that is making you 
uncomfortable, do not hesitate to talk to us. We will be happy 
to answer any questions you might have.
    Senator Shaheen. Thank you. I know that Senator McCain and 
I stand ready to be of any help we can, and I know it has the 
support of this committee as well. Thank you very much.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman, and thank you 
for your leadership of this committee. You lead us in a way 
that gets most of us to vote together every time we bring a 
bill out, and I think that is a testament to bipartisanship in 
the defense of America.
    Chairman Levin. Thank you very much.
    Senator Sessions. General Dempsey, particularly I just want 
to ask you to reaffirm--and I know you will do so--your 
responsibility to share with this committee and Congress your 
best military judgment about matters and that you will 
internally--when asked by the commander in chief to give your 
opinion, you will give your best, unvarnished military opinion 
and not be influenced by politics or pressures of any kind.
    General Dempsey. I can assure you that is what has been my 
intent and will remain my intent in the future.
    Senator Sessions. Admiral Winnefeld, would you likewise?
    Admiral Winnefeld. That is what we have been doing and what 
we continue to do. Yes, sir.
    Senator Sessions. I thank you. It is really important 
because we have a lot of significant agenda items that are 
occurring that will set policy for years to come whether it is 
the number of personnel, our involvement around the world, 
whether it is missile defense. In particular, we are beginning 
to have some hearings on our nuclear capabilities. The public 
proposal of the President that he would like to reduce by one-
third our already substantially reduced nuclear arsenal raises 
a serious concern to me. We will be asking you as time goes by 
your best judgment on that. Of course, it goes beyond the 
technical issues to our role in the world and the confidence 
our allies have in us also.
    General Dempsey, one of the more amazing things to me that 
I believe has caused a great deal of unnecessary problems with 
the sequester and the reduction in spending was the fact that 
this was passed in August 2011, and the President said in a 
national debate it was not going to happen but it was the law 
of the United States. He signed it. I frankly at the time 
wondered how it was going to be fixed. I had my doubts that we 
would get it fixed. The President has indicated basically he 
wants more taxes and more spending and he will not find any 
other reductions in spending anywhere else to relieve the 
burdens on the military.
    But I would just like to get one thing straight with regard 
to the difficulties you have faced this year. My understanding 
is that you made no plans and made no cuts in the first 6 
months of this year even though you were aware that this was 
the law in 2011, and as a result, you have had to make more 
dramatic cuts, more unwise reductions to try to finish this 
year within the budget law that you have been told you have to 
finish under. Has that been a problem for you and why did we 
not plan to reduce spending all year instead of making up all 
of that in the last 6 months?
    General Dempsey. It has been a problem, Senator. We found 
ourselves with 80 percent spent with half the year to go. The 
answer as to how did we get to that position that was the 
budget guidance we received.
    Senator Sessions. You got that from the executive branch?
    General Dempsey. I get my marching orders from the 
Department, but I assume they got it from the Office of 
Management and Budget.
    Senator Sessions. I do remain concerned about the impact on 
the Defense Department. It is not just that I have, as a member 
of this committee and personal views, a strong affinity for the 
men and women who serve us in uniform, but because half of the 
reductions in spending that were included in the BCA have 
fallen on one-sixth of the U.S. Government spending, the 
Defense Department. This is a disproportionate reduction in 
spending in my opinion to our Defense Department, and it is at 
a level that is troubling to me.
    I am ranking on the Budget Committee and I have seen the 
numbers. We should look for other areas within our Government 
to find some savings too. For example, Medicaid has no cuts. 
Social Security has no cuts. Medicare had a little but it did 
not help the Defense Department. That was used to reduce 
spending reductions in other departments. Food stamps has gone 
up four-fold in the last 10 or 12 years, had zero cuts. We are 
just at a point that we have to figure out how to deal with 
this. I do believe you are being asked to take a 
disproportionate cut, and Congress should work with the 
President, the Commander in Chief, and he needs to help us work 
through a way to spread out some of this belt tightening so 
that other departments and agencies in the Government tighten 
their belt too.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much. Thank you for your 
comments as well about me, Senator Sessions.
    Now, is Senator King here? If not, Senator Kaine? Senator 
Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    Gentlemen, thank you for your public service.
    Let us talk first about upgrading the intelligence, 
surveillance, and reconnaisance (ISR) fleet. You are moving 
from manned platforms to a combination of unmanned and manned 
platforms. The law directs the Vice Chairman and the Under 
Secretary to certify annually that the Navy remains in 
compliance in supporting the needs of the combatant commanders, 
and the Navy has certified compliance. My interest in this is 
that in the President's budget, the Navy plans to gradually 
draw down your manned platforms before going over to the P-8 
platform and then to field a fleet of MQ-4C Tritons, the 
unmanned aerial vehicles.
    Now, it is my understanding that the Secretary of the Navy 
is supportive of this position. Have you all spoken to the 
combatant commanders to confirm if these ISR capabilities 
fulfill their requirements?
    Admiral Winnefeld. I have not recently covered that 
particular slice of the combatant commander requirements. They 
are going to have their integrated priority lists due to us 
here over this fall, and we will scan those. We also get 
constant feedback from their J-8 organizations, but I would 
have to take it up for the record on whether specifically in 
that area we are answering their needs.
    Senator Nelson. Okay. I would appreciate it. I think that 
there is some concern in the Secretary's Office about this 
transition, and to see that those manned platforms are utilized 
so that there is not a gap while we are transitioning over and 
getting the combined fleet between unmanned and manned.
    [The information referred to follows:]

    Combatant commanders' requests for intelligence, surveillance, and 
reconnaisance (ISR) always exceed our capacity to provide. However, 
regarding capability, the combatant commanders contributed to the 
Navy's MISR&T Transition Plan through the Battlespace Awareness Joint 
Capabilities Board. The combatant commanders understand and support how 
we are optimizing the Navy's ``high-demand, low-density'' ISR 
capability.
    Yes, Dr. Vickers and I, along with Joint Staff and representatives 
from the combatant commands, carefully reviewed Navy's current ISR 
capabilities and proposed way ahead. We have certified Navy's plan each 
of the past 2 years. Such review is critical because, while the EP-3E 
ARIES and P-3 Special Projects Aircraft (SPA) have been workhorses for 
the Navy and Joint Force for decades, they're fast approaching end-of-
service life (approximately 2020).
    To mitigate short-term risk, the Navy is sustaining the 
capabilities of both the EP-3E and P-3 SPA aircraft while fielding the 
baseline Triton UAV with its greatly improved persistence. They are 
also adding a Quick Reaction Capability, which provides certain ``SPA-
like'' capabilities, to the P-8A aircraft. Proper phasing of manpower 
is critical to ensure transition of capability and capacity to follow-
on platforms, without impacting combatant commanders.
    The Navy's plan, as part of a joint effort, invests in the right 
platform/sensor mix and is in the best interests of the Joint force, 
particularly in our current budgetary environment. However, additional 
requirements, particularly those in the National Defense Authorization 
Act for Fiscal Year 2014 draft language requiring the sustainment of 
five EP-3Es for allocation, that limit the Navy's ability to execute 
this plan may draw resources that impede fielding of the appropriate 
future force. Dr. Vickers and I will continue to monitor Navy's 
progress closely.

    Senator Nelson. Now, once we are withdrawing from 
Afghanistan, there is going to be a lot of ISR assets that will 
come back and be distributed throughout the combatant commands. 
I sure wish that you all would take a look at what 
sequestration is doing to us in U.S. Southern Command and the 
huge success that they have had interdiction of drugs coming 
north. As a matter of fact, just in the last year, Colombia 
itself interdicted 207 metric tons. As it started to come 
through Central America toward the U.S. border, the Joint 
Interagency Task Force-South, which is the joint task force 
going after these drugs--that interdicted 152 additional metric 
tons. By the time it gets to the southern border of the United 
States, then they were interdicting another 10 metric tons. You 
can see that the big part has already been interdicted before 
it ever got there, thanks to a lot of U.S. Southern Command's 
efforts in the joint task force. I would surely appreciate it, 
as these ISR assets are going to be available, that you will 
consider Southern Command as a part to use those ISR assets. I 
know you will.
    But would you just for the record state what are going to 
be the long-term effects of the sequester on the 
counternarcotics mission?
    General Dempsey. In general, I will tell you that we will 
be able to do less in the maritime transit zones for the 
immediate future because of some combination of sequestration 
and also maintenance that has been deferred over time. I am 
concerned about it. In fact, I met over the past several months 
with both my Canadian and my Mexican counterparts to see if we 
can collaboratively find a way to mitigate the risk.
    Admiral Winnefeld. We have just had to make some very 
difficult choices in the current environment with readiness 
declining and the Navy unable to support as many ship 
deployments as they would like to, as you well know. We have 
had some considerable success, as you point out, with 
interdicting drugs coming from Central and South America in the 
maritime environment and other environments. We are going to 
have to allocate resources. As the Chairman mentioned, it is 
about balancing ends, ways, and means, and we will just have to 
keep our eye on it. Absolutely.
    Senator Nelson. I will tell you where you are going to be 
additionally stressed is if we are fortunate to get an 
immigration reform bill and if it stays in the present posture 
that it passed the Senate where all this additional money is 
being used to enhance the effectiveness of the land border, 
what is going to happen to all those drugs and, indeed, human 
smuggling it is going to go right around on the maritime 
border.
    Now, I think this was an oversight. They would not accept 
Senator Wicker's and my amendment to enhance by just $1 
billion, DHS, the Coast Guard, and helping DHS with unmanned 
platforms.
    The Navy blimp is also an asset that can be used on that. I 
have ridden in that blimp. It can dwell for a long time. The 
amount of gas that it takes for a 24-hour mission is the same 
amount of gas that it takes for an F-16 to crank up and just 
run out to the runway. It is a cost-effective platform for 
observation of something like a maritime border.
    Hopefully, if we can pass the immigration reform, we are 
going to be able to enhance that maritime border. But this is 
going to all the more bring into question the desperate need to 
avoid sequester in a place like Southern Command, not even to 
speak of all the other commands. I spent some time with Admiral 
McRaven, and he walked me through what is going to happen to 
Special Operations Command if we have this sequester continue. 
It is absolutely ridiculous that we would be doing this to 
ourselves not only shooting ourselves in the foot but starting 
to shoot ourselves up the torso.
    I wish you would take a look at the ISR assets as they come 
back and allocate some of them to Southern Command. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    We are going to have a very brief second round of about 2 
minutes for those of us who are here. We have a vote. I cannot 
see that clock, but it is getting close to 12:15 p.m. Is it 
there already? Anyway, I think we have a vote at 12:15 p.m. I 
am going to have a 2-minute second round.
    General, I want to find a way to work through the options 
issue on Syria not in 2 minutes but I want to work through it 
because I think there is a real uncertainty among some of us as 
to what your role is in terms of telling us your personal 
opinion on things, what your role is in terms of giving advice 
to the President, in terms of the options that you have laid 
out, the pluses, minuses, strengths, weaknesses of each of 
those options, whether they could be effective, what are the 
costs, what are the opportunity costs, and so forth.
    What I am going to ask you to do for the record is to give 
us an unclassified list of options and your personal assessment 
of the pros and cons of those options. Now, in some of those 
pros and cons and your personal assessment, it will be pretty 
obvious that you are not going to recommend something. But I am 
not going to ask you point blank which of these options you 
recommend. You have said you are not going to tell us. You 
cannot tell us or you have not decided. For whatever reason, 
you are not going to tell us what your preferred option is, but 
what you are willing to do is go through with us the pluses and 
minuses of each of the various options. That is what I am going 
to ask you to do in a fairly thorough way for the record.
    If you need to give us a classified annex, that is fine. 
But I want to work very hard to try to work through this issue 
of the options in Syria.
    Now, you are aware of the fact that I personally have 
favored arming and training the opposition. I personally, 
indeed, want to consider and I have even gone beyond that 
talking about stand-off airstrikes against certain facilities. 
That is just my own personal opinion so you know where I am 
coming from. You and I have talked about it. I am not trying to 
persuade you that that is the right position or should be your 
position, but that is my public position.
    My question to you is whether or not you are willing to 
give to us an unclassified list of options and the strengths 
and weaknesses, the costs and effectiveness and so forth of 
each of those options.
    General Dempsey. Absolutely, Senator, as well as the 
framework of a strategy in which they might make sense, which I 
am happy to do.
    Chairman Levin. Anything else you want to add to it. I do 
not want to limit you in any way. As long as it includes that, 
it may help us work through this issue.
    General Dempsey. Yes, but I would ask you take my point 
even now that the decision whether to use force is one that I 
must communicate personally to the President. As you have seen 
me do in the past, if the President takes my advice and you ask 
me, I will tell you that he took my advice. If he does not, I 
am more than willing to tell you no. My recommendation was 
something else. He is certainly under no obligation to take my 
advice.
    Chairman Levin. You have indicated that you are not going 
to share with us your opinion, if you have one, on whether or 
not to use force.
    General Dempsey. While it is being deliberated.
    Chairman Levin. While it is being deliberated. I am not 
asking you to do that. I think if you just are able to do what 
I have asked you to do, it may be clear that at least some of 
those options you think are not wise options just from your 
pros and cons assessment.
    General Dempsey. Right. I thought we got at it at some 
level in the classified briefing.
    Chairman Levin. But we need an unclassified answer. You 
said you are willing to lay out options and to show pros and 
cons of options and whether they can be effective, what are the 
costs, various costs, and so forth. If you will do that, it may 
be a step that would be a constructive, positive step. If you 
can do that within the next 4 or 5 days, we would appreciate 
it.
    General Dempsey. Sure.
    [The information referred to follows:]

    See attached letter.
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
    Chairman Levin. Senator Ayotte, I believe. No. I may be 
wrong.
    Senator Ayotte. I am next but I am going to defer first to 
Senator Graham and then go.
    Chairman Levin. Okay. Senator Graham?
    Senator Graham. Thank you.
    Chairman Dempsey, back to Afghanistan. If no troops were 
left behind for whatever reason in 2015, we just pulled out and 
there were no American forces left behind, the zero option, 
very quickly what is the likely outcome in Afghanistan?
    General Dempsey. Although I have told you that the progress 
of the security forces has been significant, they would not 
have the level of confidence to sustain themselves over time if 
it happens that precipitously.
    Senator Graham. It would lead to what I believe would be a 
fractured state, a larger safe haven for al Qaeda types, and 
over time would be a disaster. Do you agree with that?
    General Dempsey. Those are all high risks.
    Senator Graham. Okay, thank you.
    Admiral Winnefeld, sequestration. In terms of the Air 
Force, if sequestration--let us start with the Navy. Over a 10-
year period, how many ships will we have in the Navy after 10 
years of sequestration?
    Admiral Winnefeld. I do not have the exact number for you.
    Senator Graham. Somebody says 232 ships.
    Admiral Winnefeld. It could be that low.
    Senator Graham. Would that be just like crazy?
    Admiral Winnefeld. It would certainly impact our ability to 
respond to contingencies and to have forward presence and 
deter----
    Senator Graham. Well, I think it is crazy.
    One-third of the fighter force is grounded today. They are 
beginning to fly again because you have robbed Peter to pay 
Paul. But has the effect of sequestration grounded one-third of 
our fighter force?
    Admiral Winnefeld. It has grounded nine fighter squadrons, 
which is not one-third of the fighter force, but there are 
other squadrons that are flying at a rate lower.
    Senator Graham. What would it take for the enemy to knock 
out nine Air Force squadrons?
    Admiral Winnefeld. I know where you are coming from and it 
would be a heck of a lot.
    Senator Graham. If I were the Iranians, I would send a 
thank you note to Congress for grounding more Air Force planes 
than they could on their own. To say I am upset about this is 
an understatement.
    Finally, what if, General Dempsey, Congress could not find 
a way to reach a deal on funding the Government? Come October 
1, we just cannot fund the Government and the politicians in 
Washington cannot come up with a budget and we had no money for 
our military. What signal would that be sending to our troops 
and to our enemies? What kind of national security impact would 
it be in the times in which we live if there was no agreement 
to fund the Government? What would it mean to our national 
security?
    General Dempsey. You remember, Senator, I held up this 
slide showing that these kids that we send into harm's way 
trust us. I would have to assess that bond of trust would be 
broken.
    Senator Graham. As to our enemies, how would they take 
this?
    General Dempsey. I think they would be certainly happy at 
our demise.
    Chairman Levin. Thank you, Senator Graham.
    Senator Ayotte?
    Senator Ayotte. Thank you, Mr. Chairman.
    Admiral Winnefeld, when you look at the security of this 
country, what would you prioritize first?
    Admiral Winnefeld. I would prioritize first the survival of 
the Nation.
    Senator Ayotte. Would that mean protecting the Homeland?
    Admiral Winnefeld. It would definitely.
    Senator Ayotte. I know that earlier you were asked about 
our missile defense system, and you said that the first dollar 
we should spend is on the sensor to add discrimination power. 
Correct?
    Admiral Winnefeld. That is correct.
    Senator Ayotte. I guess I am kind of dumbfounded by it 
because, as I understand it, that was not in the budget 
proposal put forth by the Department. Why was that if it was 
the number one?
    Admiral Winnefeld. I would have to review the budget 
documents to validate that. But one thing to remember is we 
have a new commander of the Missile Defense Agency, a new 
director there. He is doing an exceptionally good job. Vice 
Admiral Syring. He, along with his technical experts, have 
studied this and they have come to the conclusion that you can 
get better shot doctrine if you get better discrimination. He 
would hasten to add that if the threat gets worse, we are going 
to need more missiles as well, which is one of the reasons 
why----
    Senator Ayotte. Okay. Let me follow that, you had said in 
your testimony that you have to watch the threat develop from 
Iran. In fact, in the recent interview that Prime Minister 
Netanyahu gave, he said that Iran is building intercontinental 
ballistic missiles (ICBM) to reach the American mainland within 
a few years. Of course, that is consistent with what we have 
heard if 2015 is a potential date when Iran will have ICBM 
capability or could have to reach the mainland of the United 
States. Is that right?
    Admiral Winnefeld. It is an intelligence assessment. It 
shifts all the time, but 2015 is the current number when they 
could potentially have a capability.
    Senator Ayotte. 2015 is the number. I guess I am a little 
dumbfounded why we keep saying that there is no current 
military requirement for an east coast missile defense site 
when the priority of our Nation is to protect the Homeland. As 
I understand it, if we went, in terms of an EIS, to production 
of an east coast missile defense site, it would take about 6 
years, would it not?
    Admiral Winnefeld. I do not know that it would take that 
long. I would have to get the exact numbers for you. But I 
think that when the EISs are done, closely on the heels of that 
we would have another threat assessment that is continually 
going on. We would have to come to a decision fairly soon, I 
think, after that as to whether we would do an east coast 
missile field to start with.
    [The information referred to follows:]

    After the completion of the Environmental Impact Statement and 
selection of a site, it will take approximately 5 years--2 years for 
planning and design, and 3 years for construction. Location (e.g. 
construction seasons, geology, et cetera) and budget programming (i.e. 
military construction) will affect the schedule.

    Senator Ayotte. When I look at the possibility of 2015 ICBM 
capability, I think the tail is wagging the dog in terms of how 
long it would take to put that up. I know you said first 
dollar. What if you had the second dollar of missile defense? 
What would you do with it?
    Admiral Winnefeld. The first thing we want to do is get the 
CE-2 missiles working and get them into the silos in Alaska to 
get the additional missiles we have talked about. That is going 
to take some time in and of itself to get that done.
    The first dollar, as I mentioned, is the sensors so that we 
have this ``quality has a quantity all its own'' phenomenon 
where we have to shoot fewer missiles at the inbound threats. 
If we can accomplish that, that will really help us.
    Then assuming if the threat continues on a trajectory where 
Iran develops an ICBM, we may well need an east coast missile 
field in order to defend this country.
    Senator Ayotte. I think what you are saying today is the 
second dollar.
    By the way, we could do both at once if we wanted to in 
terms of protecting the Homeland, could we not?
    Admiral Winnefeld. Physically we could, but in terms of----
    Senator Ayotte. If we allocated the resources for you to do 
it.
    Admiral Winnefeld. Right. The question is is that the 
wisest use of the resources. It competes with everything else, 
but as you pointed out at the very beginning of this 
discussion, the highest priority is the defense of the Nation.
    Senator Ayotte. Thank you both for being here. I appreciate 
your service to the country.
    Chairman Levin. Thank you, Senator Ayotte.
    Thank you both. We are hopeful that we will have a speedy 
markup and confirmation, but that will be up to the whole 
committee. That would be my hope. Thank you. We thank your 
spouses, your wives who are here, your families again for their 
great support over the years.
    We will stand adjourned.
    [Whereupon, at 12:25 p.m., the committee adjourned.]

    [Prepared questions submitted to GEN Martin E. Dempsey, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. On previous occasions you have answered the committee's 
policy questions on the reforms brought about by the Goldwater-Nichols 
Act, the last time being in connection with your first nomination to be 
Chairman of the Joint Chiefs of Staff.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the committee at your 
last confirmation hearing?
    Answer. No. I continue to believe that the Goldwater-Nichols Act as 
passed is effective, and I credit this legislation for making us the 
Joint Force we are today. However, if confirmed, I will continue to 
examine the lessons of the past 10 years of war to determine if there 
are opportunities to make us an even more effective Joint Force.
    Question. In light of your experience as Chairman, do you see any 
need for modifications to Goldwater-Nichols? If so, what modifications 
do you believe would be appropriate?
    Answer. I do not believe modifications to the Goldwater-Nichols Act 
are required at this time. Today's Joint Force reflects the commitment 
to integration and jointness across the Military Services established 
by Goldwater-Nichols in 1986. If confirmed, I will continue to examine 
the lessons of the past 10 years of war to determine if there are 
needed legislative modifications or other opportunities to improve 
jointness.
                                 duties
    Question. Based on your experience as Chairman, what 
recommendations, if any, do you have for changes in the duties and 
functions set forth in section 152 through section 155 of title 10, 
U.S.C., and in regulations of the Department of Defense (DOD), that 
pertain to the Chairman and the Vice Chairman of the Joint Chiefs of 
Staff and the organization and operation of the Joint Staff in general?
    Answer. If confirmed, I do not presently foresee recommending any 
changes to the law. I will, however, be attuned to potential issues and 
opportunities for improvement that might suggest consideration for 
eventual changes in the law.
                             relationships
    Question. Other sections of law and traditional practice establish 
important relationships between the Chairman and other officials. 
Please describe your understanding of the relationship of the Chairman 
of the Joint Chiefs of Staff to the following officials:
    The Secretary of Defense.
    Answer. The Chairman of the Joint Chiefs of Staff must have a close 
working relationship with the Secretary of Defense. Under title 10, the 
Chairman is assigned several duties that guide the relationship to 
include serving as the principal military advisor to the President, the 
National Security Council, and the Secretary of Defense. The Chairman 
also performs other duties assigned by the Secretary of Defense.
    Question. The National Security Advisor.
    Answer. The National Security Advisor is a special assistant and 
direct advisor to the President. As the role of the Chairman is to 
serve as the principal military advisor to the President, National 
Security Council, Homeland Security Council, and Secretary of Defense, 
if reconfirmed, I will continue to work closely with the National 
Security Advisor to ensure our efforts are synchronized across the 
interagency and for the purpose of implementing Presidential decisions.
    Question. The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
has been delegated full power and authority to act for the Secretary of 
Defense on any matters upon which the Secretary is authorized to act. 
As such, the relationship of the Chairman with the Deputy Secretary is 
similar to that with the Secretary.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, U.S.C., and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisers to the Secretary regarding matters related to their functional 
areas. Within their areas, Under Secretaries exercise policy and 
oversight functions. These instructions and directives are applicable 
to all DOD components. In carrying out their responsibilities, and when 
directed by the President and Secretary of Defense, communications from 
the Under Secretaries to commanders of the unified and specified 
commands are transmitted through the Chairman of the Joint Chiefs of 
Staff.
    Question. The General Counsel of the Department of Defense.
    Answer. Under title 10, U.S.C., section 140, the DOD General 
Counsel serves as the chief legal officer of DOD. In general, the DOD 
General Counsel is responsible for overseeing legal services, 
establishing policy, and overseeing the DOD Standards of Conduct 
Program, establishing policy and positions on specific legal issues and 
advising on significant international law issues raised in major 
military operations, the DOD Law of War Program, and legality of 
weapons reviews. The office of the DOD General Counsel works closely 
with the Office of Legal Counsel to the Chairman of the Joint Chiefs of 
Staff, and communications with the combatant commanders by the DOD 
General Counsel are normally transmitted through the Chairman of the 
Joint Chiefs of Staff.
    Question. The Department of Defense Inspector General.
    Answer. The DOD Inspector General performs the duties, has the 
responsibilities, and exercises the powers specified in the Inspector 
General Act of 1978. If confirmed, I will continue to cooperate with 
and provide support to the DOD Inspector General as required.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman of the Joint Chiefs of Staff performs the 
duties prescribed for him as a member of the Joint Chiefs of Staff and 
such other duties as may be prescribed by the Chairman, with the 
approval of the Secretary of Defense. When there is a vacancy in the 
Office of the Chairman or in the absence or disability of the Chairman, 
the Vice Chairman acts as Chairman and performs the duties of the 
Chairman until a successor is appointed or the absence or disability 
ceases.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, U.S.C., section 165 provides that, subject to the 
authority, direction and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of Military Departments are responsible for administration and support 
of forces that are assigned to unified and specified commands. The 
Chairman advises the Secretary of Defense on the extent to which 
program recommendations and budget proposals of the Military 
Departments conform to priorities in strategic plans and with the 
priorities established for requirements of the combatant commands.
    Question. The Chiefs of Staff of the Services.
    Answer. Because of the Goldwater-Nichols Act, the Service Chiefs 
are no longer involved in the operational chain of command. However, 
this does not diminish their importance with respect to title 10 
responsibilities. Among other things, they serve two significant roles. 
First, they are responsible for the organization, training, and 
equipping of their respective Services. Without the full support and 
cooperation of the Service Chiefs, no combatant commander can assure 
the preparedness of his assigned forces for missions directed by the 
Secretary of Defense and the President. Second, as members of the Joint 
Chiefs of Staff, the Chiefs are advisers to the Chairman and the 
Secretary of Defense as the senior uniformed leaders of their 
respective Services. In this function, they play a critically important 
role in shaping military advice and developing our joint capabilities. 
If reconfirmed, I will continue to work closely with the Service Chiefs 
to fulfill warfighting and operational requirements.
    Question. The combatant commanders.
    Answer. The combatant commanders fight our wars and conduct 
military operations around the world. By law, and to the extent 
directed by the Secretary of Defense, the Chairman serves as spokesman 
for the combatant commanders and is charged with overseeing their 
activities. He provides a vital link between the combatant commanders 
and other elements of DOD, and as directed by the President, may serve 
as the means of communication between the combatant commanders and the 
President or Secretary of Defense. If confirmed, I will continue to 
work closely with the combatant commanders to enable their warfighting 
capability and to provide support.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard heads a joint activity of 
DOD and is the senior uniformed National Guard officer responsible for 
formulating, developing and coordinating all policies, programs, and 
plans affecting more than half a million Army and Air National Guard 
personnel. Appointed by the President, he serves as principal adviser 
to the Secretary of Defense through the Chairman of the Joint Chiefs of 
Staff on National Guard matters. He is also the principal adviser to 
the Secretary and Chief of Staff of the Army and the Secretary and 
Chief of Staff of the Air Force on all National Guard issues. As 
National Guard Bureau Chief, he serves as the department's official 
channel of communication with the Governors and Adjutants General. As a 
member of the Joint Chiefs of Staff, the Chief of the National Guard 
Bureau has the specific responsibility of addressing matters involving 
non-Federalized National Guard forces in support of homeland defense 
and civil support missions.
    Question. The Commander, U.S. Forces-Afghanistan.
    Answer. Although the Chairman of the Joint Chiefs of Staff is the 
principal military advisor to the President, the Secretary of Defense, 
and the National Security Council, he is not in the chain of command of 
the Commander, U.S. Forces-Afghanistan (USFOR-A). The Commander, USFOR-
A reports to the Commander, U.S. Central Command (CENTCOM), who, in 
turn, reports directly to the Secretary of Defense. This reporting 
relationship is prescribed in title 10, U.S.C., section 164(d)(1). The 
Commander, USFOR-A does not have a formal command relationship with the 
Chairman of the Joint Chiefs of Staff, but he coordinates with him 
through the Commander, CENTCOM on a regular basis. The Commander, 
USFOR-A sends his advice and opinions on military operations to the 
Commander, CENTCOM, who, in turn, presents them to the Chairman.
                            major challenges
    Question. What do you consider to be the most significant 
challenges you have faced in your first term as Chairman of the Joint 
Chiefs of Staff?
    Answer. We are experiencing a period of unprecedented uncertainty 
and multiple transitions that daily test our ability to meet our 
obligations, both in the security environment and across the Joint 
Force. We face a difficult fiscal correction to restore the economic 
foundation of our power. At the same time, we are transitioning from a 
decade of war to a contingency footing in response to an uncertain and 
dangerous security landscape. Importantly, we are transitioning a 
generation of veterans, as many in the Joint Force return to the 
homefront and their communities. Across the force, the issues of sexual 
assault, veteran suicide, traumatic brain injury/mental health are 
among our most challenging. In the security environment, continued 
operations and transition in Afghanistan, the crisis in Syria, and 
deterring global provocation are among the most complex national 
security priorities we have faced. The Nation is far from being immune 
from coercion in cyberspace. This said, I continue to believe that we 
have it within us to lead through this critical and defining period, 
and remain a strong global leader and reliable ally.
    Question. What new challenges do you expect to face if you are 
confirmed for a second term?
    Answer. We face a series of tough choices moving forward, given our 
fiscal reality and the increasingly unpredictable security environment. 
These will include, but are certainly not limited to, conducting a 
responsible transition in Afghanistan, responding to the dynamic and 
persistent threat from violent extremist organizations, deterring 
increasingly bold provocation from North Korea and Iran, and detecting 
and defeating cyber and other asymmetric attacks against the homeland. 
We are less ready today than we were 1 year ago, and our readiness 
continues to degrade. If current trends continue, our military power 
will become less sustainable, and therefore less credible. In this 
context, my challenge is to continue to provide our civilian leadership 
with realistic options and risk assessments that balance current 
obligations, future contingencies, and the reality of declining 
resources. Internally, I will face the challenge of restoring the 
versatility of the Joint Force at an affordable cost. I will need to 
lead the effort to renew commitment to our profession by making sure we 
value character as much as competence.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. We can only address these challenges together--jointly, 
across the interagency, and in partnership with Congress. If confirmed, 
I will work to strengthen the relationships--and specifically the bonds 
of trust--that have allowed us to make important progress in my first 
term. This trust permeates all levels. Our men and women on the front 
lines must trust that they will be the best trained, led, and equipped 
force on the battlefield. Our military families must trust that we will 
keep faith at home. The Services and combatant commands must trust 
their views will be fairly and accurately represented within internal 
JCS deliberations and at all levels of policy debate. Our allies and 
partners must trust in our sustained global leadership. The President, 
this Congress, and the American people must trust that their military 
will meet its sacred obligation to keep our Nation immune from 
coercion.
                               priorities
    Question. Recognizing that challenges, anticipated and unforeseen, 
will drive your priorities to a substantial degree, if confirmed, what 
other priorities, beyond those associated with the major challenges you 
identified in the section above, would you set for your second term as 
Chairman?
    Answer. If reconfirmed, I will continue to emphasize the focus 
areas I established in my 2012 Strategic Direction to the Joint Force 
to achieve our national security objectives today, build the Joint 
Force for 2020, renew commitment in our profession of arms, and keep 
faith with our military family. To do this, we will need to get four 
things right. The first is to achieve strategic solvency--this means 
establishing security priorities, aligning our aims and abilities, and 
balancing current and long-term requirements. Second, I will remain 
focused on keeping the Joint Force ready and balanced. To do so, we 
must restore readiness lost due to sequester, and ensure that future 
cuts do not undermine our ability to send our troops to war with the 
best training, leadership, and equipment. Third, we must prioritize 
investment in our people. This means valuing and strengthening 
character as much as competence, reinvesting in learning and 
leadership, advancing equal and ethical treatment for all of our 
servicemembers, and allowing no quarter for sexual violence in our 
ranks. Lastly, I will focus on maintaining the bond of trust between 
our men and women in uniform and the public they serve.
                            chain of command
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Section 
163(a) of title 10 further provides that the President may direct 
communications to combatant commanders be transmitted through the 
Chairman of the Joint Chiefs of Staff and may assign duties to the 
Chairman to assist the President and the Secretary of Defense in 
performing their command function.
    Do you believe that these provisions facilitate a clear and 
effective chain of command?
    Answer. I believe that the current chain of command provides a 
clear and effective means for employing our Nation's military.
    Question. Are there circumstances in which you believe it is 
appropriate for U.S. military forces to be under the operational 
command or control of an authority outside the chain of command 
established under title 10, U.S.C.?
    Answer. Military forces should normally operate under the chain of 
command established under section 162 of title 10, U.S.C. However, an 
exception to that chain of command may be appropriate for certain 
sensitive operations. The military units supporting such an operation 
are still governed by the laws of armed conflict and, as an 
administrative matter, the military personnel remain accountable to the 
military chain of command, including for matters of discipline under 
the Uniform Code of Military Justice. Only the President may approve 
such an exception, as also recognized in section 162. If confirmed, I 
will provide the President with my best advice regarding any operation 
where an exception to the established chain of command may be 
appropriate.
    Question. What is your understanding and assessment of the 
authorities and agreements which are in place to allow U.S. military 
personnel to carry out missions under the authorities contained in 
title 50, U.S.C.? Do you believe any modifications to these authorities 
are necessary?
    Answer. As noted above, consistent with title 50 of the U.S.C., the 
President may authorize departments, agencies, or entities of the U.S. 
Government to participate in or support intelligence activities. While 
I believe that all military forces should normally operate under a 
military chain of command, there are authorities and agreements that 
allow exceptions to this chain of command for title 50 operations. In 
some cases, the Secretary of Defense may approve this exception and in 
other cases only the President has approval authority. I believe the 
current authorities are sufficient to facilitate DOD's providing 
appropriate support under title 50 while ensuring necessary oversight.
 advice of the service chiefs, combatant commanders, and chief of the 
                         national guard bureau
    Question. Section 163 of title 10, U.S.C., provides that the 
Chairman of the Joint Chiefs of Staff serves as the spokesman for the 
combatant commanders, especially on the operational requirements of 
their commands. Section 151 of title 10 provides for the other members 
of the Joint Chiefs of Staff to submit their advice or opinion, in 
disagreement with or in addition to the advice or opinion of the 
Chairman, and requires the Chairman to provide that advice at the same 
time that he presents his own advice to the President, National 
Security Council, or Secretary of Defense.
    Having served as Chairman, what changes to section 151 or section 
163, if any, do you think may be necessary to ensure that the views of 
the individual Service Chiefs, combatant commanders, Chief of the 
National Guard Bureau are presented and considered?
    Answer. I see no benefit in changing section 151 or section 163. 
Section 151 and section 163 embody the spirit and letter of Goldwater-
Nichols, a foundation of our Joint Force. I have made it a priority to 
hear from and be representative of the views of the combatant 
commanders and the JCS. I use their insights and collective experience 
to inform my best military advice. I recognize my responsibility and 
the value in my representing the views of the JCS and our senior 
commanders, even when they may vary.
                    security strategies and guidance
    Question. How would you characterize current trends in the range 
and diversity of threats we face today to national security?
    Answer. The security environment is more uncertain and dangerous. 
It can be characterized as complex due to an increasing number of 
strategically significant actors, dynamic due to rapid rates of change, 
and uncertain due to shifting nodes of power and influence and an 
unclear U.S. fiscal and budget environment. Further, the proliferation 
of advanced technologies is resulting in middleweight militaries and 
non-state actors with unprecedented destructive and disruptive 
capabilities, particularly in the areas of cyber, terrorism, and 
missiles.
    Question. In your view, is the Nation's defense strategy 
appropriate for the threats we face today and could face in the coming 
decades?
    Answer. The strategy as articulated in the January 2012 Defense 
Strategic Guidance, Sustaining U.S. Global Leadership: Priorities for 
21st Century Defense, is necessary and appropriate to safeguard the 
Nation against threats to its interests. However I am increasingly 
concerned about our ability to properly resource the strategy and 
maintain the readiness of the Joint Force due to continued fiscal 
uncertainty and constraints. I have documented the specific concerns in 
my classified Chairman's Risk Assessment submitted in February, 2013.
    Question. The Defense Strategic Guidance issued January 2012 took 
into account a $487 billion reduction in defense resources.
    With the additional $500 billion in cuts to DOD as a result of 
sequestration is the Defense Strategic Guidance still valid?
    Answer. The Department is still in the process of determining what 
revisions might be necessary to align ends, ways, and means given the 
additional $500 billion in cuts. The sequester was not expected or 
desired. The answer will depend a great deal on how the cuts are taken 
year by year (slope), the flexibility granted to the Department by 
Congress, and Congress' willingness to give the Department more scope 
for politically unpopular changes to infrastructure, benefits, and 
compensation.
    Question. At the issuance of the Defense Strategic Guidance you 
said, ``We will always provide a range of options for our Nation . . . 
.''
    What options do you lose or what options are significantly altered 
and in what way if the $500 billion in cuts is enacted?
    Answer. We will continue to provide a range of options. But, they 
may not be as robust or timely as they might have been, and they will 
entail a higher level of risk to the Nation and to the forces 
committed. In essence, we will be able to do fewer things 
simultaneously, and new contingencies may force us to take risk in 
other regions or for other security threats. The full implications of 
reduced option are unlikely to be appreciated until an unexpected 
contingency or strategic surprise occurs.
    Question. What changes, if any, should be considered?
    Answer. The recent Strategic Choices and Management Review affirmed 
the fundamental soundness of the Defense Strategic Guidance. However, 
it makes clear that we need to further prioritize missions within the 
context of a continued rebalance to the Asia-Pacific region. It also 
indicated that we are at risk of strategy insolvency if sequestration 
is implemented as currently prescribed by law. That is, there is a 
point at which a steep drawdown makes it difficult for us to meet the 
current and expected demands being placed on our military.
    Question. In your view, is our broad defense strategy and current 
establishment optimally structured, with the roles and missions of the 
military departments appropriately distributed, and U.S. forces 
properly armed, trained, and equipped to meet security challenges the 
Nation faces today and into the next decade?
    Answer. These are broad, overarching issues that the Department 
traditionally examines through its Quadrennial Defense Review (QDR). 
The recent Strategic Choices Management Review did, however, provide 
insight to changes that will need to be made in terms of capability and 
capacity to meet future security challenges. As a consequence of fiscal 
constraints, we are already losing readiness that will cost us more to 
restore. Therefore, I am concerned that our Joint Force will be 
increasingly less ready for future challenges unless we get budget 
certainty and flexibility.
    Question. In March you said, ``Recognizing longer-term uncertainty, 
I've also begun to reassess what our military strategy should be, as 
well as institutional reforms necessary to remain an effective fighting 
force.'' On the topic of Strategic Choices and Management Review, 
Secretary Hagel said, ``There will be no rollout of any grand plan on 
this.''
    Will there be any changes in strategy to account for sequestration?
    Answer. The Department is still in the process of determining what 
revisions might be necessary to align ends, ways, and means given the 
additional $500 billion in cuts. I concur with what the Secretary has 
stated. We still have considerable work ahead of us to determine the 
extent to which we have to change the Defense Strategic Guidance. That 
said, the Strategic Choices and Management Review indicated that the 
rebalance to the Asia-Pacific remains sound, but that we may need to 
further prioritize missions.
    Question. Do you feel that we have passed or are approaching the 
line where military strategy is driven by resources rather than being 
based on objectives and threats?
    Answer. Strategy is always informed by the resources available. To 
best protect the Nation, we must achieve the best possible balance of 
ends, ways, and means while assessing and mitigating risk. I am 
concerned that sequester in its current form prevents us from being 
able to achieve proper balance, pushing us closer to the line where our 
military strategy is out of balance with the resources needed to 
achieve it. If so, our military strategy will take some additional risk 
in achieving objectives, in the ways we achieve results, and in the way 
we apply resources. It is too early to determine if we will achieve the 
right balance or if we have crossed the line--but we will watch this 
carefully.
    Question. What will the indicators be if we cross that line?
    Answer. Unready forces, misaligned global posture, inability to 
keep pace with emerging threats, reduced security cooperation, and 
failure to maintain a high quality All-Volunteer Force are all becoming 
increasingly likely the longer sequestration in its current form 
persists. I am especially concerned about the All-Volunteer Force. We 
presently have the most seasoned, professional force in history. Budget 
reductions, inflexibility, and uncertainty will increasingly subject 
them to lower readiness, less education and fewer training events.
    Question. If confirmed, what changes, if any, would you propose to 
the structure, roles, and missions of the defense establishment?
    Answer. The upcoming QDR will enable us to look at these issues in 
a deliberate way. I will provide my best advice to the Secretary during 
the review and inform Congress as to my recommendations at the earliest 
opportunity. The lack of certainty in the budget environment makes it 
more difficult to make hard decisions about structures, roles, and 
missions, and more difficult to understand the impacts of those 
decisions.
                             strategic risk
    Question. Do you believe that the current and planned pace and 
scope of operations in Afghanistan in conjunction with current and 
planned end-strength and force structure reductions create increased 
levels of strategic risk for the United States based on the current or 
potential future lack of available trained and ready forces for other 
contingencies?
    Answer. The answer depends somewhat on the President's decision on 
post-2014 presence in Afghanistan and on whether sequestration takes 
effect as current prescribed by law. Generally, end-strength and force 
structure reductions could entail greater military risk to any mission, 
during execution of future contingencies, as force reductions occur.
    Question. If so, how would you characterize the increase in 
strategic risk in terms of the military's ability to mobilize, prepare, 
deploy, and employ a force for a new contingency? In your view, is this 
level of risk acceptable?
    Answer. In an unclassified forum, I am reluctant to get into 
specifics on military risk. In general, a smaller Joint Force would 
become more reliant on rapid Reserve mobilization and on maintaining 
high readiness levels for its Active Forces. Implementing sequestration 
as currently prescribed by law will make it impossible to maintain the 
levels of readiness we have today for current contingencies, much less 
to make the investments needed to employ the force for more difficult 
future contingencies. The concerns expressed in the 32-star letter to 
the committee last year about the impacts of sequestration on readiness 
still stand. If anything, I am more worried today.
    Question. What is the impact of the decision to decrease U.S. 
forces committed to Afghanistan on our ability to meet our security 
obligations in other parts of the world?
    Answer. As we draw down the forces in Afghanistan, we intend to 
reset the force as well as provide for a greater range of options for 
contingencies in other parts of the world. This approach will become 
increasingly untenable if sequestration as currently prescribed by law 
persists.
    Question. How and over what periods of time, if at all, will 
reductions to Army and Marine Corps end strength increase or aggravate 
this risk?
    Answer. Reductions to land force end strength will increase risk 
based on our decreased ability to deter conflicts and to shape 
conditions overseas through Army and Marine security cooperation 
activities. Reduced end strength means that we will be able to ``turn'' 
the force less frequently, and under certain circumstances we may have 
to extend forces beyond the optimum and sustainable boots-on-the-ground 
dwell ratio.
    Question. What is your understanding and assessment of the Army's 
recent announcement to inactivate 13 of its 45 brigade combat teams by 
the end of 2017?
    Answer. First, it's important to note that these inactivations have 
nothing to do with sequestration. The inactivation of the 13 brigade 
combat teams will reduce that part of the force that the Army actually 
increased over the last 10 years to fight our wars. With the planned 
drawdown of these forces, and the conclusion of two long-term stability 
operations, we can manage our strategy with the reductions the Army has 
planned.
    Question. If confirmed, what additional actions would you take, if 
any, to reduce or mitigate this strategic risk?
    Answer. Military strategies consist of ends, ways, means, and risk. 
``Ends'' are goals or objectives, ``ways'' describe how we intend to 
meet those objectives, and ``means'' are the resources available. If we 
cannot accept more risk, and the ``means'' are reduced, then we can 
only reduce our ``ends'', or change the ``ways''. Possible examples of 
changes to ``ways'' include adjusting our operational plans or global 
posture, modifying our operational concepts, reducing the scope and 
nature of the missions we take on, requesting new authorities, shifting 
the burden onto current alliances or undertaking new security 
cooperation mechanisms with current or new partners. Possible examples 
of changes to ``ends'' include lengthening the time it takes to resolve 
various contingencies and changing expectations about the speed with 
which we commit forces or the number of casualties we are prepared to 
accept. We could also reduce the scope of objectives in a particular 
region or contingency, or change the priorities of objectives and 
contingencies worldwide. The depth, breadth, inflexibility, and 
uncertainty of the budget reductions currently associated with 
sequestration will make any of these changes both more necessary and 
more difficult.
    Question. Upon issuance of the January 2012 Defense Strategic 
Guidance, you said ``We do accept some risks in this strategy as all 
strategies must.''
    With the benefit of hindsight, what is your assessment of the areas 
where we assume the greatest strategic risk under the current Defense 
Strategic Guidance due to cuts of $487 billion?
    Answer. The recently completed Strategic Choices Management Review 
outlined the magnitude of the challenges we could face and the 
difficulty of the decisions involved. But we have yet to make those 
choices or complete the staff level assessments for a fulsome answer. 
It did, however, indicate that the rebalance to the Asia-Pacific 
remains fundamentally sound. More directly, my sense is that the Nation 
will have a military that is increasingly unready, steadily losing 
technology overmatch to possible challengers, that is smaller but 
similar in terms of platforms and capabilities, and that will have an 
eroded global presence and posture. It is a military that will be 
viewed with increasing concern by our longtime allies and with 
increasing satisfaction by our potential adversaries. It is a military 
that will offer our civilian leaders fewer options and higher 
opportunity costs when they decide to employ military force. I will 
provide additional specifics in my next classified Chairman's Risk 
Assessment related to impacts of sequestration. But the present year-
to-year magnitude of the $487 billion cut cannot be found within our 
existing budget without taking unprecedented action. Many of these 
actions that are simultaneously prevented by other laws, particularly 
with respect to excess infrastructure, compensation and pay, and 
procurement, as well as changing the balance between Guard/Reserve/
Active Forces, adjusting the scope and scale of ground force reduction 
and allowing the retirement of unnecessary platforms. This is only a 
partial list.
    Question. What are the additional risks associated with cutting an 
additional $500 billion under sequestration?
    Answer. Please see previous answers, which outline the additional 
risks of fewer options and gaps in or security due to a force that will 
be out of balance and less ready than it should be.
                       chairman's risk assessment
    Question. In your 2013 risk assessment, you identified for the 
first time six National Security Interests that were derived from four 
enduring interests contained in the 2010 National Security Strategy.
    Please describe your rationale for assessing risk against these new 
interests that have not been incorporated into an updated national 
security strategy?
    Answer. The four enduring interests in the National Security 
Strategy provided guidance for the entire U.S. Government, including 
the diplomatic, information, and economic instruments of power. The six 
national security interests derive from these and are focused 
explicitly on the military contribution to the four enduring interests. 
I have found this construct to be useful tool when articulating 
specific risks and prioritizing our military missions. They help us 
think through the options for using force and when/where to take risk 
and expend resources.
    Question. Your April 2013 assessment identified several areas of 
broad and significant risk to national security as a result of current 
budget issues.
    How would you characterize the trends of risk in these areas 
(whether they are increasing or decreasing)?
    Answer. In an unclassified forum I am reluctant to go into much 
detail. Generally, those strategic risk trends have not changed since 
March.
    As I have mentioned elsewhere, I see increasing strategic risk 
associated with sequestration as currently prescribed by law.
    I will make note of any changes in my next risk assessment.
    Question. What is your current assessment of the risk to combatant 
commanders in their ability to successfully execute their operational 
plans?
    Answer. In my latest Chairman's Risk Assessment (CRA), I identified 
and characterized the ability of combatant commanders to successfully 
execute their operational plans and their ongoing missions. The CRA 
also included the combatant commanders' assessments of their most 
pressing challenges. In an unclassified forum I am reluctant to go into 
detail, however, I will say that all military operations entail risk, 
but we are committed to providing the President a range of options 
given any threat to U.S. interests.
                             transformation
    Question. Military ``transformation'' has been a broad objective of 
the Armed Forces since the end of the Cold War.
    In your view, what does military ``transformation'' mean?
    Answer. Military transformation is really about adapting the Joint 
Force to meet future security needs. We must be able to adapt to rapid 
changes in technology, the global security environment, and our 
adversaries' capabilities. Uncertainty is the only thing certain today. 
We must be flexible in order to deter and defeat threats at every point 
along the spectrum of conflict, from asymmetric threats to a near-peer 
competitor. If confirmed, I will maintain the development of Joint 
Force 2020 as a focus area of my chairmanship, in order to ensure that 
our Nation's security is never uncertain.
    Question. What is your understanding and assessment of the progress 
made by the Department, including the Joint Chiefs of Staff and the 
Joint Staff, toward transforming the Armed Forces?
    Answer. My 2012 Strategic Direction to the Joint Force identifies 
the development of Joint Force 2020 as one of the four focus areas of 
my chairmanship, and we've made progress in the past 2 years. We're 
working to advance interdependence, integrate new and specialized 
capabilities, promote versatility, and preserve readiness by valuing 
quality over quantity. For example, we've introduced the Joint 
Operational Access Concept to synchronize our efforts across all five 
domains--land, air, sea, space, and cyberspace. This concept provides a 
framework to ensure the Joint Force remains survivable and successful 
despite growth of anti-access and area-denial threats. We're also 
moving forward with the Joint Information Environment, implementing 
innovative industry-supported efficiencies across the Department to 
further enhance mission effectiveness and cyber security. Ultimately, 
my aim is a versatile, responsive, decisive, and affordable Joint 
Force. If reconfirmed, I look forward to working with you to achieve 
this.
    Question. If confirmed, what goals, if any, would you establish 
during your next term as Chairman regarding military transformation in 
the future?
    Answer. If confirmed, I will maintain as a priority the development 
of a superior Joint Force in 2020. Transformation during this period of 
fiscal constraint poses challenges for us, but also opportunities. We 
will be selective in the capabilities we reconstitute as we draw down 
in Afghanistan, and ensure that lessons learned over a decade of war 
are retained. We may get smaller, but we can be increasingly versatile 
and interdependent. We will be regionally postured, but globally 
networked. We will integrate new capabilities and leverage cutting-edge 
technologies that will provide a decisive advantage as we adapt to new 
ways of war. The economic situation demands that the future force be 
affordable, but keeping our military the best led, trained, and 
equipped force in the world is a non-negotiable imperative.
    Question. Do you believe the Joint Staff should play a larger role 
in transformation? If so, in what ways?
    Answer. The Joint Staff is contributing significantly to the 
transformation of the Joint Force in a closely coordinated effort with 
the Services and combatant commands. The Joint Staff's current focus is 
on concept, strategy, and doctrine development, and establishing joint 
requirements to address gaps in capability. I believe this is the 
correct role.
          military capabilities in support of defense strategy
    Question. The 2010 report of the QDR provided that military forces 
shall be sized to prevail in ongoing conflicts in Afghanistan, Iraq, 
and the war against al Qaeda as well as for conducting foundational 
activities that prevent and deter attacks or the emergence of other 
threats. The QDR report particularly emphasizes the requirement for 
improved capabilities in key mission areas such as counterinsurgency, 
stability, and counterterrorism operations, as well as building the 
security capacity of partner states. In contrast, the Defense Strategic 
Guidance of January 2012 asserts that the United States will no longer 
size its forces for long duration stability operations.
    Understanding that the Department is currently embarked on a 
Strategic Choices and Management Review that is intended to inform the 
2014 QDR, what is your understanding and assessment of the current 
ability of each Service to provide capabilities to support these 
mission requirements and, if confirmed, what changes, if any, would you 
pursue to improve these capabilities?
    Answer. The Services are currently able to provide forces to 
support the missions identified within the Defense Strategic Guidance. 
Resource constraints, however, are eroding readiness and extending the 
timeline by which forces can be made available to fulfill combatant 
commanders' requests and respond to emerging requirements. We are 
reexamining the plans and scenarios that drive the size and 
capabilities of our force to ensure they are informed by the realities 
of our fiscal and operating environment. We will continue to closely 
manage the way we use our forces as they conduct day-to-day operations. 
Further, new fiscal guidance will ensure that the Department invests in 
those capabilities most needed to defend the Nation against likely 
future mission requirements.
    Question. In your opinion, can the 2014 QDR be conducted without an 
updated National Security Strategy, which is required by law to be 
submitted annually?
    Answer. Existing guidance is sufficient to inform my statutory 
requirement to contribute to the QDR. The enduring interests 
articulated in the 2010 National Security Strategy as well as the six 
national security interests outlined in the Chairman's Risk Assessment 
provide a consistent framework within which to conduct the next QDR. If 
national priorities shift in any future NSS, we will adapt our 
strategic documents and processes such as the QDR.
    Question. Are you committed to meet the statutory date for delivery 
of a 2014 QDR to Congress?
    Answer. Yes, in accordance with title 10, U.S.C., section 118, we 
plan to meet the statutory date to deliver a 2014 QDR to Congress.
                              future army
    Question. The Defense Strategic Guidance (DSG) of January 2012 
articulated the need to shift strategic emphasis toward the Asia-
Pacific region while continuing to engage in the Middle East.
    Do you agree that future high-end military operations, as 
envisioned by the DSG, will primarily be naval and air engagements such 
that the Army will have difficulty justifying the size, structure, and 
cost of the number and equipment its combat formations?
    Answer. America needs a capable and decisive Army. The size and 
structure of the Army will continue to adapt to the evolving security 
environment. Our most recent experience with war suggests that we 
cannot predict where or when we will be asked to fight. A global 
superpower needs to retain sufficient capability, capability, and 
readiness to win across all domains. As Chairman, my focus is on 
ensuring that the Joint Force as a whole is capable of executing 
decisive operations in support of our national interests, regardless of 
geography or the theater of operations.
    Question. In your view, what are the most important considerations 
or criteria for aligning the Army's size, structure, and cost with 
strategy and resources?
    Answer. Our Nation needs an Army that can conduct full spectrum 
operations as part of the Joint Force. It must be appropriately sized, 
structured, and equipped to in order to defend the Nation and defeat 
our adversaries. The Defense Strategic Guidance deemphasized long 
duration stability operations and reinforced the importance of 
defeating and denying the objectives of an adversary. The Army is 
realigning and resizing consistent with this guidance.
    Question. If confirmed, what actions, if any, would you propose to 
properly align the Army's size and structure with the requirements of 
security strategies and the likely availability of resources?
    Answer. If confirmed, I will continue to support the ongoing 
realignment and restructuring of BCTs. These measures enhance the 
ability of the Joint Force to provide a full range of options to the 
President that meets diverse threats in an uncertain environment.
                             sequestration
    Question. Sequestration requires defense cuts totaling $37 billion 
over the last half of the current fiscal year.
    What is your assessment of how the Department is managing these 
cuts in the current fiscal year?
    Answer. The cuts required by sequestration in fiscal year 2013 are 
a self-inflicted wound to our national security. We have lost readiness 
that will take time and money to restore. We are out of balance due to 
the magnitude, mechanism, and pace of budget cuts. While the Department 
is shifting funds where possible to minimize the impact on warfighting 
capabilities and critical military readiness, sequestration to date has 
resulted in cuts to training, exercises, and deployments, civilian 
furloughs and hiring freeze, reduced base maintenance, disruption to 
modernization, and morale challenges. We are leading through these cuts 
by doing all we can to protect funding to our deployed forces, our 
nuclear enterprise, and our warrior and family support programs.
    Question. What are your views on the impact these cuts are having 
on readiness?
    Answer. We have lost readiness that will take time and money to 
restore. The impact of sequestration and other budget constraints are 
beginning to emerge in unit level readiness reports. The effects caused 
by the cancellation of large force exercises and deferred maintenance 
are harder to measure, but will also impose significant strain on long-
term institutional readiness. The combined effect of reduced training 
cycles, deferred maintenance, and the pace of current operations is 
damaging to both readiness and morale. If current trends continue, 
recovery from several months of sequestration will take years. 
Eventually, our readiness problem will become a recruitment and 
retention problem.
    Question. The fiscal year 2014 budget request and the fiscal year 
2014 budget resolutions passed by the Senate and the House of 
Representatives all assume that sequestration will be avoided in fiscal 
year 2014. It appears possible that sequestration will not be avoided 
in fiscal year 2014 and DOD will have to cut $52 billion from its 
budget request. You have been involved in developing the most workable 
approach to meeting the $52 billion savings requirement established by 
the Budget Control Act.
    What is your assessment of the Department's proposals for managing 
the additional $52 billion in cuts in fiscal year 2014?
    Answer. The abrupt, deep cuts caused by the Budget Control Act caps 
in fiscal year 2014 will force DOD to make non-strategic choices. If 
sequester continues, the Department will have to make sharp cuts with 
far reaching consequences, including limiting combat power, reducing 
readiness, and undermining the national security interests of the 
United States. To limit adverse consequences, we need the certainty of 
a predictable funding stream, time to balance force structure, 
modernization, compensation, and readiness, and the flexibility to make 
trade-offs. The Secretary directed a Strategic Choices and Management 
Review to develop options that would accommodate these large cuts, but 
none of these options fully avoid an increase in risk to our national 
security.
    Question. What are your views on the impact these cuts will have on 
readiness?
    Answer. While DOD would attempt to protect the operation and 
maintenance funding most closely related to training and readiness, 
full protection will be impossible. Therefore, military training and 
readiness would remain at the currently degraded levels or, in some 
cases, would continue to decline in a sequester-level cut of $52 
billion in fiscal year 2014. Ultimately, ongoing cuts will threaten our 
obligation to send only the best trained, led and equipped forces into 
harm's way.
    Question. What are your views on the impact these cuts will have to 
military capabilities?
    Answer. Given the difficulty of cutting fiscal year 2014 military 
personnel funding, DOD would be forced to disproportionately reduce 
funding for operations and maintenance; procurement; research, 
development, test, and evaluation; and military construction. Funding 
for hundreds of program line items, large and small, will be 
significantly reduced. We will buy fewer ships, planes, ground 
vehicles, satellites, and other weapons systems. Cuts in funding for 
research and development will ultimately slow discovery and 
advancement, eroding the technological superiority enjoyed by U.S. 
forces and translating into less desirable military outcomes in future 
conflicts.
                           readiness funding
    Question. Given the reductions in readiness funding, what is your 
assessment of the current readiness of the Armed Forces to meet 
national security requirements across the full spectrum of military 
operations?
    Answer. Despite a decade of strenuous demands on the force, we 
remain sufficiently ready to conduct current operations. The Joint 
Force faced the simultaneous challenge of reconstituting the force and 
focusing on a broad spectrum of operations prior to sequestration. Now, 
we must prioritize the readiness of our deployed and next to deploy 
forces at the expense of reconstituting the majority of the nondeployed 
force. This approach is unsustainable and cannibalizes longer-term 
reconstitution. Simply put, sequester hinders our ability to generate 
forces for contingency operations. If nothing changes, most operational 
units will have readiness deficiencies by fiscal year 2014. This lost 
readiness will cost more and take longer to recover.
    Question. What is your assessment of the near-term trend in the 
readiness of the Armed Forces?
    Answer. We have curtailed operations, maintenance, and training 
across the force because of sequestration cuts. Specific actions by 
Service include:

        <bullet> Army--80 percent of ground forces training will be 
        curtailed for the remainder of fiscal year 2013. Units will 
        train to just squad-level proficiency. Half of all third- and 
        fourth-quarter depot maintenance has been cancelled.
        <bullet> Air Force--12 Active Duty combat aviation squadrons 
        stood down.
        <bullet> Navy--Ship deployments have been reduced. Steaming 
        days and training opportunities for nondeployed ships as well 
        as flying hours for nondeployed air wings have also been 
        reduced, resulting in at least one air wing being at minimum 
        safety levels by the end of fiscal year 2013.
        <bullet> Marine Corps--Efforts remain focused on meeting near-
        term commitments for deployed and next-to-deploy forces. We are 
        concerned about the availability of amphibious ships.

    We are beginning to see the effect of these actions in unit level 
readiness reports and expect that trend to continue as time reveals the 
full impacts of sequestration. We are prioritizing the readiness of our 
deployed and next to deploy forces, but the decreased readiness of the 
nondeployed force and damage to production and training pipelines make 
this unsustainable.
    Question. Given the impact of sequestration, do you support the 
additional sourcing of base defense funds to pay for unforeseen 
requirements in support of overseas contingency operations?
    Answer. While under sequestration, I would support a source of 
funding in the base budget to pay for emergent contingency operations. 
We will inevitably face new contingencies as operations wind down in 
Afghanistan and associated funding for overseas contingency operations 
decreases. Without such relief in this or in the form of a 
supplemental, the Services will mortgage readiness to absorb the costs 
of these operations.
    Question. How critical is it to find a solution to sequestration 
given the impacts we have already seen to DOD readiness in fiscal year 
2013?
    Answer. It is critical. I am deeply concerned about the loss of 
readiness across the Department. Lost readiness take longer and costs 
more to recover. It foreclosed options and compounds risk. We are 
repeating the mistakes of past drawdowns. The impact of sequestration 
and other budget constraints are beginning to emerge in unit level 
readiness reports. The longer term effects caused by the cancellation 
of large force exercises and deferred maintenance are harder to 
measure, but will impose significant strain on long-term institutional 
readiness.
    Question. What is your understanding and assessment of the methods 
currently used for estimating the funding needed for the maintenance of 
military equipment?
    Answer. Requirements drive equipment maintenance based on factors 
that include force structure, operations tempo, schedule, nature and 
use of the equipment, and safety. The Services' detailed maintenance 
plans balance operational availability with maintenance requirements. 
Perturbations in the budget process and funding uncertainties have 
effects across the maintenance plan for months and even years.
    Question. Given the backlog in equipment maintenance over the last 
several years, do you believe that we need an increased investment to 
reduce this backlog?
    Answer. The Services have successfully managed their equipment 
maintenance backlogs in recent years. But funding shortfalls from 
successive Continuing Resolutions and sequestration in fiscal year 2013 
have culminated in more depot maintenance deferrals across all 
Services. If sequestration continues, this backlog will grow, causing 
reduced availability rates, less reliable systems, and platforms not 
reaching their intended service life. We need budget certainty and 
flexibility to best equip the Services to achieve force readiness over 
time.
    Question. How important is it to reduce the materiel maintenance 
backlog in order to improve readiness?
    Answer. Very. Force readiness includes materiel. The remedy for the 
accumulating maintenance backlog is the same as the remedy for force 
readiness--time and money.
    Question. How important is it to receive Overseas Contingency 
Operations (OCO) funding 2 or 3 years after the end of combat 
operations in order to ensure all equipment is reset?
    Answer. Very important. OCO has been a necessary funding source to 
conduct ongoing operations and reset equipment to prepare for future 
operations. Equipment consumed in Iraq and Afghanistan remains relevant 
to unit readiness. OCO beyond the end of combat operations will help 
restore the readiness required to support the National Security 
Strategy. Lack of OCO for reset will delay the Services' ability to 
meet readiness requirements in the out years.
    Question. In years past, we have based additional readiness funding 
decisions on the Service Chief unfunded priorities lists. However, in 
recent years those lists have either been nonexistent or have arrived 
too late in our markup process.
    Do you agree to provide unfunded priorities lists to Congress in a 
timely manner beginning with the fiscal year 2015 budget request?
    Answer. The provision of unfunded requirements lists to Congress is 
a longstanding practice. Given the budget uncertainty, it is difficult 
to project whether and when we might submit requirements for 2015. 
Should the Services have such requirements, the existing statutory 
framework provides the opportunity for the Joint Chiefs to make 
recommendations that are responsive to Congress after first informing 
the Secretary of Defense.
                       defense acquisition reform
    Question. Congress enacted the Weapon Systems Acquisition Reform 
Act of 2009 (WSARA), without a dissenting vote in either House. WSARA 
is designed to ensure that new defense acquisition programs start on a 
sound footing, to avoid the high cost of fixing problems late in the 
acquisition process.
    Having now served as the Chairman, what are your views regarding 
WSARA and the need for improvements in the Defense acquisition process?
    Answer. The Weapon Systems Acquisition Reform Act of 2009 has been 
instrumental in ensuring new defense programs start on a sound footing 
to avoid the high cost of fixing problems late in the acquisition 
process. It also jump-started a culture within the Department focused 
on the continuous improvement of our acquisition processes and their 
associated outcomes, which I strongly endorse.
    Question. If confirmed, how would you improve all three aspects of 
the acquisition process (requirements, acquisition, and budgeting)?
    Answer. There is an ongoing effort within the Department to 
continuously improve all aspects of the acquisition process. As 
recently as January of 2012 a new revision of the Joint Capabilities 
Integration and Development System (JCIDS) was published, and we are 
currently working with the Office of Secretary of Defense to revise DOD 
5000.02, ``Operation of the Defense Acquisition System.'' DOD 5000.02 
will incorporate the initiatives outlined in Dr. Carter's 2010 ``Better 
Buying Power: Guidance for Obtaining Greater Efficiency and 
Productivity in Defense Spending (BPP 1.0)'' memo and Mr. Frank 
Kendall's 2012 initiative entitled ``Better Buying Power 2.0: 
Continuing the Pursuit for Greater Efficiency and Productively in 
Defense Spending'', all of which I strongly support, along with the 
improvements instituted in the new JCIDS instruction and manual.
    Question. Do you believe that the current investment budget for 
major systems is affordable given increasing historic cost growth in 
major systems, costs of current operations, and asset recapitalization?
    Answer. I am concerned that costs in acquisition and procurement 
will continue their historic growth profiles, further exacerbating 
shortfalls under a sequestered budget. We will continue to scrub our 
processes, including our warfighter requirements, to ensure they are 
aligned with strategy and available resources. But, it will likely be 
necessary to reduce some investments for major systems under full 
sequestration.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. I will continue to partner with the Office of the Secretary 
of Defense to improve our inter-related processes, and work closely 
with our combatant commanders and our title 10 Service providers to 
mitigate cost growth impacts of and on our highest priority capability 
investments. I will be an advocate for major systems that provide 
versatility at an affordable and sustainable cost.
    Question. If confirmed, what actions would you propose, if any, to 
ensure that requirements are realistic and prioritized?
    Answer. The improvements put into place in the latest revision of 
the JCIDS process have been very effective. The Joint Requirements 
Oversight Council (JROC) is now more focused on weapon system cost, 
schedule, and performance, and uses greater analytical rigor to reach 
recommendations. The JCIDS process and the associated responsibilities 
of the JROC, Services, and the JROC advisors in support of the JCIDS 
process will continue to be refined throughout my tenure as Chairman.
                     contractors on the battlefield
    Question. According to widely published reports, the number of U.S. 
contractor employees in Afghanistan often exceeds the number of U.S. 
military deployed in there. This was also the case during the 
operations in Iraq.
    Do you believe that DOD has become too dependent on contractor 
support for military operations?
    Answer. They have been part of our military force since the 
Revolutionary War. Contractors function in various roles and are a 
force multiplier. They provide rapid expansion of manpower when needed 
to fill critical gaps. The use of local contractors can be an important 
element of military objectives. With that in mind, I think we need to 
continuously evaluate the costs and necessity of contractors to make 
sure contractor support is properly structured for a period of fiscal 
correction.
    Question. What risks do you see in the Department's reliance on 
such contractor support? What steps do you believe the Department 
should take to mitigate such risk?
    Answer. We are in the process of analyzing lessons learned from 
Iraq and Afghanistan and updating doctrine to ensure that we can 
properly target capabilities that are optimum for contracting support. 
Contracting provides capabilities the military may not have readily 
available, but it is critical that we maintain effective oversight and 
introduce better cost controls.
    Question. Do you believe the Department is appropriately organized 
and staffed to effectively manage contractors on the battlefield?
    Answer. Yes. However, oversight is critical to ensure contracts are 
properly executed. We are in much better shape today than we were when 
the wars began over 10 years ago. We will continue to apply the lessons 
learned to improve our processes. We have expanded personnel two-fold 
and have a roadmap to move us to an appropriately staffed and organized 
contracting capability. I will remain focused on this challenge as we 
make resource tradeoffs in the sequestration process.
    Question. What steps if any do you believe the Department should 
take to improve its management of contractors on the battlefield?
    Answer. The Department will continue to mature the contingency 
capabilities of our contracting agencies and to provide dedicated unit 
contracting specialists for oversight. We will continue to adjust 
doctrine based on lessons learned and maintain our focus on training 
and education for this critical military capability.
                       tactical fighter programs
    Question. Perhaps the largest modernization effort that we will 
face over the next several years is the F-35 Joint Strike Fighter (JSF) 
program to modernize our tactical aviation forces with fifth generation 
tactical aircraft equipped with stealth technology.
    Based on current and projected threats, what are your current views 
on the requirements for and timing of these programs?
    Answer. Dominance in the air is essential to the success of our 
Joint Force. Since 1953, our ground forces have not been attacked from 
the air by our adversaries. We cannot let any other nation achieve 
parity with the United States in the ability to control the air. The 
projected threats from our adversaries include programs to build 
advanced aircraft that will challenge our current capabilities in the 
coming years. The F-35, which will replace several older generation 
aircraft across the Joint Force, will continue to ensure our air 
dominance well into the future.
    Question. What is your current assessment of whether the 
restructuring of the JSF program that we have seen over the past 2 
years will be sufficient to avoid having to make major adjustments in 
ether cost or schedule in the future?
    Answer. The Department is committed to the JSF program and the 
acquisition adjustments we have made over the past 2 years. But, budget 
constraints and uncertainty may impact the program. To date, the F-35 
has flown more than 3,000 flights totaling more than 5,000 flight hours 
and is largely tracking to our re-baselined plan. The program's 
estimate for major milestone events remains aligned to the 2012 
acquisition baseline. Flight tests are also progressing close to plan.
                       ballistic missile defense
    Question. Do you agree that the current Ground-based Midcourse 
Defense system, with interceptors deployed in Alaska and California, 
provides defense of the entire United States--including the east 
coast--against missile threats from both North Korea and Iran, and do 
you have confidence in that system?
    Answer. Yes, I am confident that the Ground-based Midcourse Defense 
system, supported by other deployed and available ballistic missile 
defense capabilities, can protect the United States from both a limited 
North Korean and Iranian long-range ballistic missile attack.
    Question. On March 15, 2013, Secretary of Defense Chuck Hagel 
announced a series of initiatives to improve our homeland ballistic 
missile defense capabilities, including the planned deployment of 14 
additional Ground-Based Interceptors (GBIs) in Alaska, to help stay 
ahead of the long-range missile threat from North Korea and Iran.
    Do you support the initiatives announced by Secretary Hagel, and do 
you believe they will help us stay ahead of the threat from North Korea 
and Iran?
    Answer. Yes, I support the initiatives announced by Secretary 
Hagel. The collective results of the initiatives will further improve 
our ability to counter future missile threats being developed by Iran 
and North Korea.
    Question. As indicated in the 2010 Ballistic Missile Defense 
Review, the administration is pursuing a ``fly-before-you-buy'' 
approach to missile defense, and will test systems in an operationally 
realistic manner to demonstrate they will work as intended before we 
deploy them. Since a GBI flight test failure with the Capability 
Enhancement-II kill vehicle in 2010, the Missile Defense Agency has 
been working to fix the problem and plans to conduct an intercept 
flight test in the spring of 2014 to demonstrate the fix.
    Do you agree with the ``fly-before-you-buy'' policy, and do you 
agree with Secretary Hagel that, before we deploy the additional GBIs, 
we need to test and demonstrate the fix so we demonstrate its 
capability and have confidence that it will work as intended?
    Answer. Yes. I agree with the administration's approach to test 
systems in an operationally realistic manner. I also agree with the 
importance of achieving confidence in a capability before it is 
deployed.
    Question. Section 227 of the National Defense Authorization Act for 
Fiscal Year 2013 requires an Environmental Impact Statement (EIS) for 
possible future homeland missile defense sites in the United States, in 
case the President determines to proceed with such a deployment in the 
future. That EIS process is expected to be complete in early 2016.
    Do you agree that the EIS process should be completed prior to 
making any decision relative to possible deployment of an additional 
homeland missile defense site in the United States, including possibly 
on the east coast?
    Answer. I agree that EISs should be completed to ensure compliance 
with the National Environmental Policy Act prior to the actual 
deployment of an additional missile defense site in the United States.
    Question. Do you agree with the Director of the Missile Defense 
Agency and the Commander of the Joint Functional Component Command for 
Integrated Missile Defense that there is currently ``no validated 
military requirement to deploy an east coast missile defense site''?
    Answer. Yes. At this time, there is no validated military 
requirement to deploy an East Coast Missile Defense Site. However, 
analysis is underway to determine if such a site will be necessary to 
defend the Homeland.
    Question. Do you agree with their assessment that ``investment in 
Ballistic Missile Defense System discrimination and sensor capabilities 
would result in more cost-effective near-term improvements to homeland 
missile defense'' than deploying an east coast missile defense site?
    Answer. Given current fiscal constraints, investment in Ballistic 
Missile Defense Systems discrimination and sensor capabilities has the 
potential to be a cost-effective near-term approach to improving 
homeland missile defense. Deploying an East Coast missile defense site 
would likely be a lengthier process.
    Question. Do you agree with the following statements regarding a 
potential East Coast missile defense site:
    General Jacoby (Commander, U.S. Northern Command): ``A third site, 
wherever the decision is to build a third site, would give me better 
weapons access, increased GBI inventory and allow us the battle space 
to more optimize our defense against future threats from Iran and North 
Korea.''
    General Formica (Commander Space and Missile Defense Command): 
``Certainly, it brings increased capacity and increased capability than 
we have at Fort Greely.''
    National Research Council: ``A GBI site located in northeastern 
United States would be much more effective and reliable and would allow 
considerably more battle space and firing doctrine options.
    Answer. Generally yes, but there is no guarantee of an increased 
GBI inventory or that it would be the most cost-effective option.
    Question. Do you agree that Presidents Bush and Obama put in place 
policies that called for additional missile defense sites in Europe to 
better defend against threats to the United States from Iran?
    Answer. Yes. The intention of additional missile defense sites in 
Europe is to better defend the United States as well as our treaty 
allies.
    Question. Is this presidentially directed requirement still valid 
and, if not, what has changed to permit the elimination of this 
requirement for a third interceptor site?
    Answer. Additional analysis remains to determine whether a third 
site is the optimum and most effective way of fulfilling that 
requirement.
                                 space
    Question. China's test of an anti-satellite weapon in 2007 was a 
turning point for the United States in its policies and procedure to 
ensure access to space. As a nation heavily dependent on space assets 
for both military and economic advantage, protection of space assets 
became a national priority.
    Do you agree that space situational awareness and protection of 
space assets should be a national security priority?
    Answer. Yes. Space situational awareness underpins our ability to 
operate safely in an increasingly congested space environment. It is 
vital that the United States protect national space assets to maintain 
the benefits and advantages that are dependent on our access to space.
    Question. In your view should China's continued development of 
space systems inform U.S. space policy and programs?
    Answer. Yes. The U.S. Government ensures its space policy and 
programs address China's continued development of space systems as well 
as systems of other space-faring nations. Our National Security Space 
Strategy reflects this domain's role in U.S. national security. Access 
to space underpins our ability to understand emerging threats and 
challenges, project power globally, conduct operations, support 
diplomatic efforts, and enable the global economy. The Department 
engages in cooperative opportunities and leads in the formation of 
rules and behaviors that benefit all nations. I support the development 
of U.S. space capabilities which preserve the use of space for the 
United States and our allies, while promoting the principles of the 
2010 National Space Policy.
    Question. If confirmed, would you propose any changes to National 
Security space policy and programs?
    Answer. I do not recommend any proposed changes at this time. If 
confirmed, I would continue implementation of the President's 2010 
National Space Policy, the supporting 2011 National Security Space 
Strategy, and the Department's newly updated Space Policy.
    Question. What actions would you take to ensure that the Department 
continues to have access to radiofrequency spectrum that is necessary 
to train and to conduct its operations?
    Answer. It is important that DOD preserve access to the 1755-1850 
MHz band and open access to the 2025-2110 MHz bands. The Joint Force is 
dependent on tactical systems that operate in the 1755-1850 MHz band to 
operate and train its forces. DOD equities in this band include 
Satellite Operations, Air Combat Training Systems, Aeronautical Mobile 
Telemetry, Small Unmanned Aerial Systems, Electronic Warfare, Joint 
Tactical Radios System, and Tactical Radio Relay systems. Other 
agencies are seeking DOD to relinquish operations in this band, 
particularly the lower 25 MHz (1755-1780 MHz). These agencies also seek 
to have DOD Compress into the upper 70 MHz of this band (1780-1850 
MHz). DOD analysis has determined that previously mentioned tactical 
systems cannot effectively operate in the compressed band. If 
compression of this band occurs, DOD would require access in the 2025-
2110 MHz band and resources to modify systems to operate within this 
band. Some of the tactical systems could share spectrum with the 
commercial wireless industry within the lower 25 MHz without adversely 
effecting commercial systems, e.g. satellite operations.
                           strategic systems
    Question. Over the next 5 years DOD will begin to replace or begin 
studies to replace all of the strategic delivery systems. For the next 
15 plus years, DOD will also have to sustain the current strategic 
nuclear enterprise. This will be a very expensive undertaking.
    Do you have any concerns about the ability of the Department to 
afford the costs of nuclear systems modernization while meeting the 
rest of the DOD commitments?
    Answer. The modernization of the strategic delivery systems and 
sustainment of the strategic nuclear enterprise is important to 
maintaining a safe, secure, and effective nuclear deterrent. I support 
the continued investment in sustainment and modernization as a priority 
for defense spending. I am, of course, concerned about the impact of 
sequestration on our ability to meet these requirements. Therefore, I 
continue to request budget certainty, flexibility, and time to make 
sure we can modernize and sustain our strategic systems.
    Question. If confirmed will you review the modernization and 
replacement programs to ensure that they are cost effective?
    Answer. Yes, I will review both to ensure they are cost effective.
    Question. The Department will begin to issue guidance from the 
recent decision to revise the Nuclear Employment Strategy.
    Do you support this change in Strategy?
    Answer. Yes, I do support the change in Strategy. Admiral Winnefeld 
and I participated in senior leader meetings, where we provided our 
best military advice to both the Secretary of Defense and the President 
on our nuclear capabilities.
    Question. Will you keep Congress fully informed of additional 
guidance issued in response to this changed strategy?
    Answer. I will work closely with the Secretary and the President to 
keep Congress fully informed as additional guidance is developed and 
issued with respect to the changes in our strategy.
                  nuclear weapons employment strategy
    Question. President Obama recently issued new guidance on nuclear 
weapons employments strategy, consistent with the 2010 Nuclear Posture 
Review (NPR).
    Do you support the President's new nuclear weapons employment 
guidance, and did you have an opportunity to provide input to the 
formulation of the new guidance?
    Answer. Yes, I support the President's new guidance. Both Admiral 
Winnefeld and I participated in senior leader meetings, where we 
provided our best military advice to both the Secretary of Defense and 
the President.
    Question. Do you agree with the President's assessment that the 
United States can ensure its security, and the security of our allies 
and partners, and maintain a strong and credible strategic deterrent 
while safely pursuing up to a one-third reduction in deployed strategic 
nuclear weapons below the level established in the New START treaty? 
Please explain your views.
    Answer. We can ensure our security and that of our allies and 
partners and maintain a strong and credible strategic deterrent while 
pursuing further reductions beyond the New START treaty central limits. 
However, to be very clear on this point, in order to maintain a 
credible and effective deterrent we must continue to adequately invest 
in the modernization of our nuclear infrastructure as long as nuclear 
weapons exist. Also, further reductions in strategic nuclear weapons, 
beyond the New START Treaty Central Limits, should occur as part of a 
negotiated position with Russia. Both Admiral Winnefeld and I have made 
this recommendation to the President and the Secretary of Defense.
    Question. Is the current strategic balance between Russia and the 
United States stable?
    Answer. I believe we currently have a stable and strategic balance 
with Russia, but we must be thoughtful to maintain that balance in such 
a manner that we never sacrifice our ability to credibly provide 
extended deterrence and assurance to our allies.
    Question. What is the military rationale to pursue an additional 
one-third reduction in deployed U.S. strategic nuclear weapons?
    Answer. Based on the results of the Post-NPR analysis, the 
Department concluded that we could further reduce the number of 
deployed U.S. strategic nuclear weapons, while still meeting the 
objectives of the revised policy guidance and strategy. From the 
military perspective, further reductions should occur as part of a 
negotiated position with Russia, and to ensure the credibility of a 
smaller deterrent force, our nuclear infrastructure modernization plans 
must be fully funded and supported. In following this approach, I am 
confident we can maintain a strategic and stable balance with Russia, 
while maintaining a viable extended deterrent for our allies and 
partners.
    Question. What are the potential risks and benefits of pursuing 
additional nuclear force reductions?
    Answer. I am confident that we can ensure our security and that of 
our allies and partners, and maintain a strong and credible strategic 
deterrent while pursuing further reductions beyond the New START treaty 
central limits. In order to maintain and effective and credible 
deterrent, we must continue to adequately invest in the modernization 
of our nuclear infrastructure as long as nuclear weapons exist. Also, 
further reductions in strategic nuclear weapons, beyond the New START 
Treaty Central Limits, should occur as part of a negotiated position 
with Russia to ensure stability. As we negotiate further reductions 
with Russia, to include their larger number of non-strategic nuclear 
weapons, I am encouraged by the initiative to expand the scope of those 
reductions to include both strategic and nonstrategic nuclear weapons 
that are both deployed and nondeployed. I believe this is a prudent 
approach that will maintain strategic stability with Russia.
    Question. Do you agree it is necessary to address the disparity 
between Russia and the United States in tactical nuclear weapons, in a 
verifiable manner?
    Answer. It is important for us to work with Russia to establish 
cooperative measures that will improve mutual confidence regarding the 
accurate accounting and security of tactical nuclear weapons. I support 
efforts to engage Russia in accordance with the Senate's Resolution to 
Ratification of the New START treaty.
    Question. Do you agree that any further nuclear reductions should 
be done in concert with Russia and that such reductions be part of a 
formal agreement requiring the advice and consent of the U.S. Senate?
    Answer. The Senate's Resolution to Ratification of the New START 
treaty sets forth principles I agree with. This includes the principle 
that further arms reduction agreements obligating the United States to 
reduce or limit the Armed Forces or armaments of the United States in 
any militarily significant manner may be made only pursuant to the 
treaty-making power of the President. This power is set forth in 
Article II, section 2, clause 2 of the Constitution of the United 
States.
    Question. Do you agree it is important to address any potential 
Russian non-compliance with existing nuclear arms control agreements?
    Answer. Yes, we should address treaty compliance concerns. Treaty 
compliance determinations are provided to Congress in the report by the 
President on Adherence to and Compliance with Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments which is 
submitted pursuant to section 403 of the Arms Control and Disarmament 
Act, as amended (title 22, U.S.C., section 2593a).
               dod's cooperative threat reduction program
    Question. The CTR program, which is focused historically on 
accounting for, securing or eliminating Cold War era weapons of mass 
destruction (WMD) and materials in the states of the former Soviet 
Union, has started to expand its focus to other countries. With this 
expansion the CTR program is widening its focus to biological weapons 
and capabilities including biological surveillance and early warning; 
and encouraging development of capabilities to reduce proliferation 
threats.
    Do you think the CTR program is well coordinated among the U.S. 
Government agencies that engage in threat reduction efforts, e.g., DOD, 
the Department of Energy, and the State Department?
    Answer. Yes. In the past year DOD, the Department of Energy, and 
the State Department have jointly decided how to use funds from the 
proliferation prevention program. Cooperation is ``built in'' because 
drawing from each Department's fund requires concurrence by the other 
Department's Secretary. Additionally, many agencies are now working 
closely together to reduce threats in particular regions. This 
cooperation extends across the Defense and State Departments 
Cooperative Threat Reduction programs, State's Nonproliferation 
Disarmament Fund, and the DOE Proliferation Prevention Program.
    Question. The new umbrella agreement with Russia does not include 
work with the Russian ministry of Defense and recent efforts in the 
program have moved towards preventing proliferation in the Middle East 
and North Africa.
    Do you support this transition to the Middle East and North?
    Answer. I think transition to the Middle East and North Africa 
makes good sense. It builds the capacity for regional partners to 
improve WMD threat reduction through proliferation prevention. It 
increases safety and security of materials of concern, and it helps 
with border security and consequence management. The transition to 
these regions complements National Strategic objectives and geographic 
combatant commander priorities to meet those goals.
    Question. What actions will you take to continue a proliferation 
prevention relationship with Russia?
    Answer. If the agreements with Russia are extended, the project to 
transport and dismantle nuclear weapons would continue for some 
additional years. This program securely ships strategic and tactical 
nuclear warheads to dismantlement locations or to more secure storage 
sites until they can be dismantled. DOD plans to support approximately 
four secure shipments of legacy nuclear weapons per month and the 
associated maintenance for railcars and railcar security systems. While 
DOE projects to secure nuclear materials continue, direct DOD support 
to our partnership with Russia is critical to U.S. nonproliferation 
efforts.
    Question. About 60 percent of CTR resources are proposed for 
biological programs.
    With the very real threat of chemical weapons use and/or 
proliferation as we saw in Libya and are seeing in Syria, why is there 
such a large percentage of resources directed toward biological issues?
    Answer. Dedication of 60 percent of CTR to biological programs is a 
necessary balance in order to deal with a pandemic, accidental release 
of a pathogen of security concern, or deliberate attack using a 
biological agent. All of these would have consequences in the United 
States and well beyond our borders and the obvious health impacts. 
There is an increasing availability of biological materials, and many 
countries are developing laboratory capacity to detect highly dangerous 
pathogens. This rapid expansion of poorly controlled infrastructure 
could lead to accidental exposure or release of highly contagious 
pathogens. An additional vulnerability at these laboratories is the 
inherently dual-use nature of biological activity. Legitimate 
infrastructure, materials, and expertise, therefore, can easily be 
manipulated or used for nefarious purposes if the appropriate safety 
and security measures are not in place. As a major hub of international 
travel, immigration, and commerce, the United States is directly 
threatened by this global danger.
                          prompt global strike
    Question. The 2010 QDR concluded that the United States will 
continue to experiment with prompt global strike prototypes. There has 
been no decision to field a prompt global strike capability as the 
effort is early in the technology and testing phase.
    In your view, what is the role for a conventional prompt global 
strike capability in addressing the key threats to U.S. national 
security in the near future?
    Answer. We are exploring a range of ways to counter the threat 
posed as our adversaries increase the range and lethality of their 
weapon systems. There are potential future circumstances that may 
require a capability to address high value, time sensitive and defended 
targets from ranges outside the current conventional technology. We 
will continue to capture these evolving capability needs in our joint 
requirements process. We will also continue to evaluate ongoing 
analysis of a Conventional Prompt Global Strike capability in order to 
provide recommendations on its future development.
    Question. What approach (e.g. land-based or sea-based or both) to 
implementation of this capability would you expect to pursue if 
confirmed?
    Answer. If confirmed, I would expect to pursue a sea-based approach 
as directed by the Deputy Secretary of Defense in February 2012. I 
would, of course, remain open to additional analysis or factors that 
would suggest another approach.
    Question. In your view what, if any, improvements in intelligence 
capabilities would be needed to support a prompt global strike 
capability?
    Answer. Intelligence, Surveillance, and Reconnaissance (ISR) is an 
enabling capability for a wide range of important Joint Force 
capabilities to include global strike. A Conventional Prompt Global 
Strike weapon would likely require an advance persistent surveillance 
sensor constellation to enable and enhance its operational performance.
               nuclear weapons and stockpile stewardship
    Question. Congress established the Stockpile Stewardship Program 
with the aim of creating the computational capabilities and 
experimental tools needed to allow for the continued certification of 
the nuclear weapons stockpile as safe, secure, and reliable without the 
need for nuclear weapons testing. The Secretaries of Defense and Energy 
are statutorily required to certify annually to Congress the continued 
safety, security, and reliability of the nuclear weapons stockpile.
    As the stockpile continues to age, what do you view as the greatest 
challenges, if any, with respect to assuring the safety, security, and 
reliability of the stockpile?
    Answer. To sustain a safe, secure, and effective stockpile today, 
we must prudently manage our nuclear stockpile and related Life 
Extension Programs (LEPs). We must also cultivate the nuclear 
infrastructure, expert workforce, and leadership required to sustain it 
in the future. If confirmed, I will consider the full range of LEP 
approaches to include refurbishment of existing warheads, reuse of 
nuclear components from different warheads, and replacement of nuclear 
components.
    Question. If the technical conclusions and data from the Stockpile 
Stewardship Program could no longer confidently support the annual 
certification of the stockpile as safe, secure, and reliable, would you 
recommend the resumption of underground nuclear testing? What 
considerations would guide your recommendation in this regard?
    Answer. Our current nuclear stockpile is assessed as effective. It 
is certified and does not require further nuclear testing. However, the 
stockpile is aging. I understand there are, and will always be, 
challenges in identifying and remedying the effects of aging on the 
stockpile. If confirmed, I am committed to working with the Department 
of Energy to maintain the critical skills, capabilities, and 
infrastructure needed to ensure the safety, reliability, and security 
of the stockpile within a constrained budget environment.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. I agree that the full funding of the 1043 report, which has 
replaced the 1251 report, is a critical national security priority. The 
President's fiscal year 2014 budget request again includes a 
significant commitment to support the long-term plan for extending the 
life of the weapons in our enduring stockpile and modernizing the 
nuclear weapon complex. I am committed to continuing the modernization 
and sustainment of our nuclear weapons delivery systems, stockpile, and 
infrastructure.
    Question. Prior to completing this modernization effort, do you 
believe it would be prudent to consider reductions below New START 
treaty limits in the deployed stockpile of nuclear weapons?
    Answer. Modernization efforts must be considered in any 
deliberations over the size of our deployed stockpile. Further analysis 
will be necessary to determine the extent to which it would be 
advisable to make further reductions prior to completing modernization 
efforts. Factors to be considered in such analysis include U.S. policy 
objectives as well as the need to maintain strategic stability with 
Russia and China while assuring our allies and partners.
    Question. If confirmed, would you recommend any changes to the 
nondeployed hedge stockpile of nuclear weapons?
    Answer. There may be opportunities to change the nondeployed hedge 
of nuclear weapons while still effectively managing stockpile risk. 
This would be considered as we complete life-extension programs that 
improve safety, security and reliability of the stockpile and as we 
modernize the infrastructure. I am committed to reducing the size of 
the stockpile consistent with deterrence objectives and warfighter 
requirements.
                                  iraq
    Question. With the withdrawal of all U.S. combat forces from Iraq 
at the end of 2011, the United States and Iraq began what the President 
called a new chapter in the bilateral relationship between the two 
countries. At the same time, the 2008 Strategic Framework Agreement 
continues to set forth a number of principles of cooperation governing 
the U.S.-Iraqi relationship. In December 2012, DOD and the Iraqi 
Ministry of Defense concluded a Memorandum of Understanding for Defense 
Cooperation.
    In your view, what are the main areas of mutual strategic interest 
in the U.S.-Iraqi relationship?
    Answer. We see areas of mutual strategic interest in partnership 
with a sovereign, stable and democratic Iraq in several areas to 
include: countering Iran's aggression and pursuit of nuclear weapons 
capability; mitigating destabilizing effects on the region from 
violence in Syria; counterterrorism cooperation to reduce al Qaeda in 
Iraq (AQI) capacity; stable production of petroleum exports; active 
participation in regional multilateral exercises; and involvement in 
the Gulf Cooperation Council.
    Question. What are the main areas of bilateral defense cooperation 
between the United States and Iraq?
    Answer. The main areas of defense cooperation are through Foreign 
Military Sales (FMS), Foreign Military Funding (FMF) programs, and 
International Military Education and Training (IMET). Iraq has begun to 
participate in regional exercises, highlighted by their recent activity 
in the International Mine Countermeasure Exercise and Eager Lion 
Counterterrorism Exercise. Under the U.S.-Iraq Security Framework 
Agreement--and given the lack of a Status of Forces Agreement--DOD is 
limited to non-operational training with Iraq. However, our Office of 
Security Cooperation-Iraq has helped facilitate bilateral training 
between Iraqi Security Forces and other regional militaries. All other 
defense training is conducted by contractor personnel through FMS 
cases.
    Question. What is your assessment of the current threat posed by al 
Qaeda in Iraq?
    Answer. AQI continues to pose a significant threat to internal 
stability in Iraq. Extremist elements responding to the crisis in Syria 
have bolstered AQI capability and motivation. Sectarian divisions, 
coupled with a lack of security in the Disputed Internal Boundaries, 
have allowed AQI to act as a destabilizing influence. The Iraqi Counter 
Terrorism Service (CTS)--one of the most professional and disciplined 
units in Iraq--nevertheless lacks the ability to develop actionable 
intelligence to effectively suppress the threat.
    Question. What is your assessment of the capabilities of the Iraqi 
security forces to respond to the threat posed by al Qaeda and other 
security challenges?
    Answer. Due to current sectarian violence and political discord 
among the ethnic groups in Iraq, the Iraqi Security Forces (ISF) are 
reaching their operational limits. Additionally, the lack of a coherent 
border security strategy allows the flow of weapons and personnel to 
and from Syria. The Office of Security Cooperation in Iraq (OSC-I) is 
limited to non-operational training. However, Iraq's recent acquisition 
of intelligence, surveillance and reconnaissance equipment will improve 
the ISF's ability to counter the AQI threat. Meanwhile, Iraq's external 
defense capabilities are extremely limited based on the focus on 
internal stability.
    Question. What do you see as the principle role or roles of the 
Office of Security Cooperation within the U.S. Embassy in Iraq?
    Answer. The principle role of the Office of Security Cooperation-
Iraq (OSC-I), under Chief of Mission authority, is to conduct security 
assistance and security cooperation activities advancing the U.S. 
strategic goal of a sovereign, stable, and self-reliant Iraq. OSC-I 
trains the Iraqi Security Forces (ISF) to meet Iraq's internal security 
requirements while leveraging Foreign Military Financing (FMF), 
International Military Education and Training (IMET) programs, and 
other security assistance authorities to complement Iraq's robust 
Iraqi-funded Foreign Military Sales (FMS) program.
    Question. What do you see as the greatest challenges for the U.S.-
Iraqi strategic relationship over the coming years?
    Answer. The greatest challenge facing the U.S.-Iraq strategic 
relationship is the successful transition to a more traditional 
security cooperation relationship--with a robust bilateral and 
multilateral training and exercise program--despite persistent 
sectarian violence throughout the country and rising tensions over 
Iranian support to Syria.
    Question. What are the lessons learned from the drawdown and post-
combat operations in Iraq that should be applied to the drawdown and 
post-combat operations in Afghanistan?
    Answer. First, we must improve communication and coordination 
between DOD and Department of State as we shift from a military-led 
program to a diplomatic-led program. In Iraq, the lack of a fully 
integrated civilian-military drawdown significantly complicated an 
already difficult transition. Second, we must clearly-define the 
missions and support for U.S. and coalition forces remaining in 
Afghanistan, with all authorities and agreements in place prior to 
completion of full transition. These authorities and agreements--a 
primary aim of U.S.-Afghan Bilateral Security Agreement negotiations--
will provide assurance of the U.S. commitment and help preserve hard-
fought gains as Afghanistan begins the critical post-2014 period. 
Finally, we must maintain an equilibrium among our campaign objectives, 
retrograde, and the protection of our forces.
                    stability and support operations
    Question. The U.S. experience in Iraq and Afghanistan has 
underscored the importance of planning and training to prepare for the 
conduct and support of stability and support operations in post-
conflict situations. In contrast, however, the January 2012 Defense 
Strategic Guidance asserts that the Department will avoid becoming 
involved in long duration stability and support operations.
    What steps, if any, would you recommend to ensure that the lessons 
learned from stability operations in Iraq and Afghanistan are captured 
and appropriately institutionalized?
    Answer. We've captured the lessons we have learned regarding 
stability operations in our Joint Doctrine. Specifically, we have a 
complete publication (JP 3-07) dedicated to the topic--the current 
version is dated September 2011. Later this year, we will formally 
assess this publication with the intent to update it as part of our 
routine doctrine process. Further, we will ensure the lessons and 
concepts are retained in our training and education.
                          afghanistan campaign
    Question. What is your assessment of the progress of the military 
campaign in Afghanistan?
    Answer. The military campaign in Afghanistan continues to progress 
as illustrated by the recent Milestone 13/TRANCHE V announcement. In 
fact, the campaign has now shifted into a fundamentally new phase. For 
the past 11 years, the United States and our Coalition allies have been 
leading combat operations. Now, the Afghans are taking over, and ISAF 
is stepping back into a supporting role. The progress made by the ISAF-
led surge over the past 3 years has put the Government of the Islamic 
Republic of Afghanistan (GIRoA) in control of all Afghanistan's major 
cities and 34 provincial capitals and driven the insurgency away from 
the population. ISAF's primary focus is now shifting from directly 
fighting the insurgency to supporting the Afghan National Security 
Forces (ANSF) in their efforts to hold and expand these gains.
    Question. What is your assessment and prioritization of enablers 
that need to be built and sustained within the ANSF given the cessation 
of U.S. and North Atlantic Treaty Organization (NATO) combat operations 
by the end of 2014?
    Answer. We have invested considerably in developing the ability of 
the ANSF to sustain itself in the field with logistics and mobility. We 
will continue to accelerate the development of additional enabling 
capabilities to include route clearance and casualty evacuation.
  transition of security responsibility in afghanistan and u.s. troop 
                               reductions
    Question. In February of this year, President Obama announced that 
by February 2014 U.S. troop levels in Afghanistan will be reduced to 
34,000. In June, the ANSF achieved Transition Milestone 2013, and 
assuming the lead responsibility for security throughout Afghanistan.
    Do you support the President's decision to reduce U.S. troop levels 
in Afghanistan to 34,000 by February 2014? Why or why not?
    Answer. Yes. Transition Milestone 2013 represents a significant 
shift for our mission in Afghanistan. Over the past 11 years, the 
United States and our partners have led combat operations. Now the 
Afghans are taking the lead for their own security. ISAF's primary 
focus has shifted from directly fighting the insurgency to supporting 
the ANSF. We match troop levels to the mission and our new mission 
requires fewer troops on the ground. The decision to drawdown U.S. 
forces was made based on the real and tangible progress of the ISAF 
military campaign and an assessment of an increasingly capable ANSF.
    Question. What is your understanding regarding the pace of those 
reductions in U.S. forces?
    Answer. We are on path to meet our objective of 34,000 troops by 
February 2014. This objective is based on a transition in our mission 
to support increasingly capable ANSF. The Commander ISAF will have the 
flexibility to meet his mission and sustain the right forces through 
this fighting season. He will also manage the glideslope as we settle 
into a supporting role.
    Question. Do you support the June transition of lead responsibility 
for security throughout Afghanistan to the Afghan security forces?
    Answer. I support the transition of responsibility for security to 
the ANSF. Security progress and the development of the ANSF into a 
capable and confident fighting force have enabled the security 
transition process to move forward. The ANSF continues to demonstrate 
its ability to defeat the Taliban and provide security to the Afghan 
people.
    Question. Do you support the transition to the ANSF of full 
responsibility for security in Afghanistan by December 2014?
    Answer. Yes. The ANSF continues to demonstrate significant 
improvement. We are seeing many encouraging examples where ANSF are 
gaining capability, confidence, leadership, and will to engage with the 
enemy. The ANSF is on a path to be capable of assuming full 
responsibility for security by December 2014.
    Question. What is your assessment of the potential impact of 
withdrawing faster than the announced drawdown and of leaving zero 
troops in Afghanistan post-2014?
    Answer. Withdrawing faster and leaving zero troops in Afghanistan 
would likely compromise the sustainability of the ANSF. It would also 
impact on our ability to retrograde all our personnel and equipment 
while ensuring the protection of the force. Therefore, I continue to 
support an enduring presence post-2014 to support ANSF development and 
meet our security interests.
                  afghanistan national security forces
    Question. What is your assessment of the progress in developing a 
professional and effective ANSF?
    Answer. The ANSF continues to grow into a confident and capable 
force. We are focusing on leadership development as fundamental to the 
professionalization of the ANSF. Leadership ratings continue to improve 
and the National Military Academy of Afghanistan and the ANA Officer 
Academy will play a pivotal role in professionalizing the ANA. 
Additionally, the Minister of Defense (MoD) formed an Evaluation 
Commission that is responsible for identifying poorly performing 
commanders and removes them when required. This allows the MoD the 
opportunity to fix the poor/lacking command climate within and address 
leadership concerns. Further, the Afghan National Police Training 
Command focuses on delineating strategic level roles, literacy of the 
force and rule of law knowledge.
    Question. Do you support maintaining the ANSF at the level of 
352,000 beyond 2014 based on the security conditions on the ground in 
Afghanistan?
    Answer. I recommended to the Secretary of Defense and the President 
that the 352,000 ANSF force level should continue beyond 2014. The 
extension of the ANSF ``surge'' force is crucial to put Afghans at the 
fore to provide their own security. At this time, it is premature to 
assess the duration of this surge, but at a minimum, this extension 
would likely be necessary for at least 2 years following the end of the 
ISAF mission to counter the possibility of a Taliban resurgence after 
the departure of coalition forces.
    Question. What do you see as the main challenges to building the 
capacity of the ANSF and what recommendations, if any, would you make 
for addressing those challenges?
    Answer. The main challenges we face in building the capacity of the 
ANSF are attrition, leadership, and limited literacy. Unfortunately, 
these issues continue to undermine positive recruiting, training, and 
professionalization goals. These are not problems that can be solved in 
the short term, but ISAF is continuing to work with the MoI and the MoD 
to address them. We must also continue to work on the support functions 
that will sustain the ANSF in the field such as logistics.
    Question. A recent audit report by the Special Inspector General 
for Afghanistan Reconstruction (SIGAR) raised concerns about DOD plans 
to purchase PC-12 aircraft and Mi-17 helicopters for the Afghan Special 
Mission Wing and recommended suspending the contracts for these 
purchases. DOD and the North Atlantic Treaty Organization Training 
Mission-Afghanistan/Combined Security Transition Command-Afghanistan 
did not concur with the SIGAR's recommendation on contract suspension.
    What is your assessment of current plans to equip the Afghan 
Special Mission Wing (SMW) with PC-12 aircraft and Mi-17 helicopters?
    Answer. Our strategy in Afghanistan includes reducing the number of 
and reliance on U.S. enablers by building capability in the ANSF. In 
part, this will rely on developing the Afghan Air Force and the SMW, 
and thus reducing our requirements for aviation assets.
    Question. What is your assessment of the impact to Afghanistan 
counterterrorism efforts if Mi-17 helicopters are not acquired?
    Answer. We need to support development of a helicopter capability 
for the ANSF. This capability allows for transporting combat-ready 
Afghan troops throughout the remote regions of Afghanistan. The Mi-17 
is a proven, familiar, compatible, and is well suited for operating 
from remote locations with minimal ground support. It possesses 
superior vertical lift capabilities and is capable of operation in the 
high-altitude, mountainous terrain of Afghanistan. Previous analysis 
showed that the Mi-17 stands apart as an all-around helicopter capable 
of medium and heavy lift.
    Question. Do you support the SIGAR recommendation to suspend the 
contracts to acquire these aircraft and helicopters for the Special 
Mission Wing? Why or why not?
    Answer. No. It is important for the Afghans to operate and sustain 
a familiar platform to support the current war effort. The ANSF has 
over 30 years of extensive experience with this platform, with the vast 
majority of the seasoned Afghan helicopters pilots having flown and 
maintained this platform since the 1980s. The ANSF currently has over 
150 trained Mi-17 pilots; to retrain the ANSF workforce (aircrew/
maintainers) on an unfamiliar platform would take a minimum of 3 years 
and additional funds. Requiring the ANSF to retrain on any other 
platform than the Mi-17 would significantly impact the long-term 
success of the ANSF.
                       operation resolute support
    Question. In early June, NATO defense ministers endorsed a concept 
of operations for the training and advisory mission, known as Operation 
Resolute Support, which the Alliance will maintain in Afghanistan after 
the ISAF combat mission ends in December 2014. The size of the mission 
is yet to be determined, but previously U.S. officials have said that a 
force of 8,000-12,000 troops was under consideration.
    What do you consider to be the primary role or roles of the NATO 
Operation Resolute Support force in Afghanistan after 2014?
    Answer. The primary role of the post-2014 NATO mission is to train, 
advise, and assist the ANSF at the national and institutional level, 
down to the Corps level. Resolute Support Mission may also contain 
limited enabler support as we continue to build ANSF capability.
    Question. In your view, what factors should be considered in 
determining the size of the post-2014 NATO mission in Afghanistan?
    Answer. A number of factors will be considered in determining the 
size of the post-2014 NATO mission. First, the continued progress of 
the ANSF and the level of training, advise, and assistance required to 
further that progress. Second, the number of bases required to support 
a regional approach and to assist other agencies of the U.S. Government 
will drive the size of the post-2014 force level. Lastly, any post-2014 
mission will depend on completion of the BSA and the sustainment of 
international commitments.
    Question. What is the impact on NATO ally commitments to Operation 
Resolute Support of the U.S. not announcing a post-2014 force 
commitment?
    Answer. Our NATO allies are aware that the President is considering 
a range of options based on a number of factors to include the 
performance of the ANSF during this fighting season. At the NATO 
Defense Ministers meeting in June, allies and partners endorsed a 
concept of operations for the new mission for Afghanistan after 2014. 
This will guide NATO's operational planning over the coming months. A 
decision on our force commitment will be necessary soon in order for 
NATO members to source the plan in sufficient time to enable the 
deployment of forces.
                  peace negotiations with the taliban
    Question. In your view, what ``redlines'' should the United States 
and Afghanistan establish for any outcome from peace negotiations with 
the Taliban?
    Answer. Historically, insurgencies end with some form of a 
political settlement. We continue to support an Afghan-led 
reconciliation effort with the goal of a negotiated a political 
settlement that also protects U.S. security interests. This will likely 
require elements of the Taliban that wish to reconcile to: (1) lay down 
their weapons and stop violence; (2) denounce al Qaeda; and (3) accept 
the Afghan constitution including the rights afforded women and 
children.
    Question. How effective has the current program for reintegrating 
insurgent fighters been in removing fighters from the battlefield? What 
additional steps, if any, should be taken to improve the reintegration 
program?
    Answer. The program has had some success in weakening the 
insurgency in some areas. Fighters that are not ideologically committed 
to the Taliban can sometime be persuaded to reintegrate. The program, 
however, is only successful if there is credible and effective 
governance. Any program can be improved, and this is no exception. We 
need to maintain oversight of the process of delivering projects and 
utilizing the allocated funds.
            enduring strategic partnership with afghanistan
    Question. Do you support maintaining an enduring strategic 
partnership between the United States and Afghanistan beyond 2014?
    Answer. Yes. I remain committed to a long-term strategic 
partnership with Afghanistan. An enduring strategic partnership is 
needed to sustain Afghan forces and to counter transnational terrorist 
threats.
    Question. How would you describe the main U.S. strategic interests 
regarding an enduring relationship with Afghanistan and in that region?
    Answer. We remain committed to a long-term strategic partnership 
with the Afghan Government and the Afghan people. We have a strategic 
interest in making sure that Afghanistan never again becomes a safe 
haven for al Qaeda and its affiliates that pose a threat to the 
homeland. An enduring partnership with a stable Afghanistan also 
promotes regional stability.
    Question. Do you support the conclusion of the Bilateral Security 
Agreement between the United States and Afghanistan?
    Answer. I support the conclusion of the Bilateral Security 
Agreement. We are currently negotiating an agreement that will provide 
the basis for a continued American military presence post 2014. Such an 
agreement is necessary for us to maintain a mutually beneficial 
partnership.
    Question. In your view, what redlines, if any, must the United 
States establish for the negotiation and conclusion of the Bilateral 
Security Agreement?
    Answer. In my judgment, the United States must have Exclusive 
Criminal and Civil Jurisdiction over our personnel stationed in 
Afghanistan. This is fundamental protection we provide our 
servicemembers overseas. We must also ensure that we have necessary 
operational authorities to accomplish our mission.
                   special operations in afghanistan
    Question. Special Operations Forces depend on general purpose 
forces for many enabling capabilities, including intelligence, 
surveillance, and reconnaissance (ISR); logistics; and medical 
evacuation. Admiral McRaven, Commander of U.S. Special Operations 
Command, has said ``I have no doubt that special operations will be the 
last to leave Afghanistan'' and has predicted that the requirement for 
Special Operations Forces may increase as general purpose forces 
continue to be drawn down.
    If confirmed, how would you ensure adequate enabling capabilities 
for Special Operations Forces as general purpose forces continue to 
draw down in Afghanistan?
    Answer. If confirmed, I would ensure adequate enabling capabilities 
needed to support the SOF mission set by working collaboratively with 
ISAF, CENTCOM, and the NATO Special Operations Command-Afghanistan to 
determine requirements. These enabling capabilities would be tailored 
to support our post-2014 mission based on force levels that have yet to 
be decided.
    Question. In April 2012, the United States and Afghanistan signed a 
Memorandum of Understanding on the ``Afghanization'' of direct action 
counterterrorism missions in Afghanistan--reflecting the shared 
intention of having Afghan security forces in the lead in the conduct 
of such operations with U.S. forces in a support role.
    What is the status of efforts to put Afghan Special Operations 
Forces in the lead for such operations and why do you believe such a 
transition is important?
    Answer. We continue to see ANSF SOF make significant progress in 
operational effectiveness, and their independence, capacity, and 
competence continues to grow. One hundred percent of ANA Special 
Operation Forces missions are Afghan led, and approximately 60 percent 
of Provincial Response Company police missions are Afghan led. This 
transition is important to demonstrate that GIRoA is capable of leading 
security operations needed to further the growth in governance and 
Development.
    Question. The Village Stability Operations (VSO) and Afghan Local 
Police (ALP) programs--both U.S. Special Operations missions--have been 
consistently praised by U.S. military leaders as critical elements of 
the counterinsurgency strategy in Afghanistan.
    What are your views on the value of these programs and do you 
believe they should be part of the long-term strategy in Afghanistan 
(i.e. post-2014)?
    Answer. VSO and ALP represent a very visible expression of local 
security to many Afghans, particularly those in remote and isolated 
communities. GIRoA has identified VSO/ALP as a necessary pillar of 
their own long-term strategy. In November 2012, the MOI proposed that 
the ALP be designated a component of the Afghan Uniformed Police. Then 
in March 2013, the ALP was included in the MOI 10-Year Vision for the 
Afghan National Police.
               u.s. strategic relationship with pakistan
    Question. What in your view are the key U.S. strategic interests 
with regard to Pakistan?
    Answer. Our strategic interests and national security goals remain 
to disrupt, dismantle, and defeat al Qaeda and to prevent the return of 
safe havens in Afghanistan and Pakistan. This would not be possible 
without Pakistani support. We also have an interest in a stable 
Pakistan and the non-proliferation of nuclear weapons and technology. 
On the security front, we have a more limited relationship than in the 
past, but I believe it is a pragmatic and constructive approach.
    Question. Does the United States have a strategic interest in 
enhancing military-to-military relations with Pakistan? Why or why not?
    Answer. Yes. Military-to-military ties with Pakistan are an 
important aspect of the broader bilateral relationship. Our 
engagements, and especially our security assistance programs, are 
essential for effective military cooperation between our two countries. 
I have engaged productively with General Kayani many times in the past, 
and the Office of the Defense Representative in Pakistan plays an 
important role in building and sustaining military-military ties at 
lower levels. These relationships allow us to engage Pakistan in 
clearly defined areas of shared concern such as maintaining regional 
stability, curbing violent extremism, and countering the threat of 
improvised explosive devices.
    Question. If so, what steps would you recommend, if confirmed, for 
enhancing the military-to-military relationship between the United 
States and Pakistan?
    Answer. If confirmed, I will continue my close engagement with the 
Pakistan Military. As Pakistan democratic consolidation progresses, we 
must ensure that we maintain our military-to-military ties. I will 
continue a frank and respectful dialogue about our shared interests in 
countering extremist and promoting regional stability. Security 
cooperation cannot succeed without the buy-in of Pakistani leadership 
and continued support of the U.S. Congress.
    Question. For several years, the United States has provided 
significant funds to reimburse Pakistan for the costs associated with 
military support and operations by Pakistan in connection with 
Operation Enduring Freedom.
    What is your assessment of Pakistan's cooperation with the United 
States in counterterrorism operations against militant extremist groups 
located in Pakistan?
    Answer. Pakistan's cooperation on counterterrorism has not always 
met our expectations. Since 2009, Pakistan has undertaken 
counterinsurgency operations against extremist organizations in the 
northwest, including Swat, North and South Waziristan, Mohmand, and 
Bajaur with mixed results. Security assistance, Coalition Support Fund 
reimbursements, and cross-border coordination with ISAF and Afghan 
forces have helped enable these operations. It is in our interest that 
Pakistan continues this campaign as effectively and comprehensively as 
possible.
    Question. What is your assessment of Pakistan's efforts to maintain 
transit and provide security along the ground lines of communication 
(GLOCs) through Pakistan?
    Answer. The key route to sustain forces has been movement via 
sealift to Pakistan and then ground movement through Pakistan to 
Afghanistan. This is the cheapest, fastest, most direct surface route. 
Since the reopening, the Government of Pakistan has provided security 
to U.S. and NATO cargo shipments through the PAK GLOC. Pakistan is 
maintaining security along the GLOCs through Pakistan to Afghanistan 
for the trans-shipment of equipment and supplies in support of U.S. 
military operations in Afghanistan and the retrograde of U.S. equipment 
out of Afghanistan.
    Question. What is your assessment of Pakistan's efforts to counter 
the threat improvised explosive devices, including efforts to attack 
the network, go after known precursors and explosive materials?
    Answer. Pakistan recognizes the IED problem is a shared problem. 
They also suffer significant casualties within Pakistan as a result of 
extremist attacks using IEDs. We are making progress in the area of C-
IED cooperation. Pakistan is taking demonstrable steps to disrupt the 
IEDs, to include placing new restrictions on the distribution of 
precursor materials and hosting regional discussions to discuss the IED 
problem with international partners, including Afghanistan.
                                  iran
    Question. Iran continues to expand its nuclear program and has 
failed to provide full and open access to all aspects of its current 
and historic nuclear program to the International Atomic Energy Agency.
    What is your assessment of the military and political threat posed 
by Iran?
    Answer. Iran poses a significant threat to the United States, our 
allies and partners, and our regional and global interests. Countering 
Iran's destabilizing and malign behavior requires a comprehensive 
approach. Iran is actively investing in the development of a range of 
conventional capabilities, including air, missile, and naval assets. 
Iran continues to publicly threaten to use its naval and missile forces 
to close the Strait of Hormuz or target U.S. interests and regional 
partners. Iran is also one of the main state-sponsors of terrorism, 
proxy and surrogate groups. Iran continues to provide arms, funding, 
and paramilitary training to extremist groups. On the nuclear front, 
Iran continues to pursue an illicit nuclear program that threatens to 
provoke a regional arms race and undermine the global non-proliferation 
regime. Iran also continues to develop ballistic missiles that could be 
adapted to deliver nuclear weapons. Iran will seek to use its threat 
capabilities to enable greater influence in the region and threaten our 
allies.
    Question. What is your assessment of U.S. policy with respect to 
Iran?
    Answer. I support the U.S. policy of preventing Iran from acquiring 
nuclear weapons. To this end, we are prepared with military options to 
include associated costs and risks. Moreover, we are pursuing a 
comprehensive strategy to confront Iran's malign behavior that includes 
diplomatic isolation, economic pressure through sanctions, diplomatic 
engagement through the P5+1, and military pressure through contingency 
preparations and exercises. In addition, we are reassuring our partners 
in the region by deepening our security commitments and building their 
capabilities.
    Question. What more do you believe the United States and the 
international community can and should do to dissuade Iran from 
pursuing nuclear weapons?
    Answer. This policy question is best answered by the State 
Department. That said, it is clear that continued international unity 
on sanctions is crucial to bringing Iran to the negotiating table with 
a serious proposal. Further, we need to sustain a comprehensive 
strategy that includes diplomatic pressure through UN Security Council 
Resolutions, economic pressure through sanctions, diplomatic engagement 
through the P5+1, and military pressure through contingency 
preparations and exercises.
    Question. In your view, what are the risks associated with reducing 
U.S. presence in the Middle East with respect to the threat posed by 
Iran?
    Answer. The reduction of U.S. force presence in the Middle East--
due to withdrawal from Iraq (and Afghanistan), rebalance to the Asia-
Pacific, and in part from fiscal constraints--could impact our ability 
to deter aggression and assure our allies. That said, we retain a 
significant and ready presence in the region with high-end capabilities 
that should serve to mitigate against such concerns. Furthermore, our 
global reach and strike capabilities contribute to our ability to deter 
and assure.
    Question. In your view, what has been the effect of sanctions 
against Iran--how effective have they been and should additional 
unilateral or multilateral sanctions be levied against Iran?
    Answer. The United States has put in place against Iran tough, 
smart, and crippling sanctions. As a result of these sanctions, Iran's 
financial, trade, and economic outlook has deteriorated significantly. 
International financial institutions estimate that Iran's economy 
contracted in 2012 for the first time in more than 2 decades. 
International sanctions have hindered Iran's weapons procurement 
efforts and driven up the costs of obtaining necessary components for 
its military. Sanctions also appear to have slowed Iran's progress on 
its nuclear program, making it increasingly difficult for Iran to 
import needed materials or skills. The question of additional sanctions 
is best answered by the State Department.
    Question. In your view, what role should DOD play in countering 
Iran's support of international terrorism?
    Answer. Iranian support for proxy groups and terrorist activities 
constitutes a serious threat to our partners and allies as well as U.S. 
interests. In short, Iran's activities are malevolent and intentionally 
destabilizing. DOD continues to help counter Iranian malign activities 
in at least three ways. First, we support diplomatic and intelligence 
efforts to inhibit the activities of Iranian proxy and terrorist 
groups. Second, we leverage our military presence in the region to 
deter and, when directed by the President, disrupt Iranian malign 
activities. Third, we leverage our extensive security cooperation 
relationships with countries in the Middle East and around the world to 
build partner capacity and trust to counter Iranian destabilizing 
activities.
    Question. Do you agree with President Obama that all options, 
including military options, should remain on the table with respect to 
Iran?
    Answer. I do agree that all options must be kept on the table in 
order to achieve our policy objectives toward Iran. It is our 
responsibility to conduct prudent planning for all contingencies, and 
we will ensure that military plans are kept up-to-date. This 
preparedness will have the effect of reinforcing our overall policy.
    Question. Do you assess that sanctions will prevent or dissuade 
Iran from acquiring nuclear weapons?
    Answer. Continued international unity on sanctions is crucial to 
bringing Iran to the negotiating table with a serious proposal. 
Departments of State and Treasury have put in place the strongest and 
most comprehensive international sanctions in history, and we believe 
the sanctions are having a dramatic effect on the Iranian economy. I 
support continuing sanctions pressure on Iran; however, it is not yet 
clear if sanctions will ultimately prevent or dissuade Iran.
                                 syria
    Question. What is your assessment of the situation in Syria and its 
impact on the region?
    Answer. The crisis in Syria continues to be tragic, dynamic, and 
complex. The conflict reflects a sectarian fault line that extends 
across and is destabilizing the region. We are planning and engaging 
with Syria's neighbors--Israel, Turkey, Jordan, Lebanon, and Iraq--to 
contain the spillover effects that would render our allies and partners 
less secure. The competition among states with regional interests 
continues to fuel the violence with negative implications for deepening 
Sunni-Shia tensions within Syria and beyond.
    Question. In your view, what is the most appropriate role for the 
United States in assisting regional friends and allies respond to the 
situation in Syria?
    Answer. The United States provides leadership and support to the 
surrounding countries through multilateral planning efforts and 
humanitarian assistance. We are continuously engaged with key regional 
partners such as Jordan, Lebanon, Turkey, and Iraq to provide 
assistance, technical knowledge and military contingency planning.
    Question. In your view, what--if any--role should the U.S. military 
play with respect to the situation in Syria?
    Answer. We should and are pursuing a regional strategy along four 
lines of effort. First, we are working with our partners in the region. 
Second, we are supporting the moderate opposition. We are currently 
providing non-lethal assistance to increase the capability of the 
opposition. Third, we are providing humanitarian assistance to help 
with a massive refugee problem. Fourth, we are planning and posturing 
our forces for a wide range of military options.
    Question. In your view, what role--if any--are Iran, Russia, and 
Hezbollah playing in the current conflict in Syria?
    Answer. Iran, Russia, and Hezbollah continue to support the Assad 
regime. Russia continues to supply arms, and Hezbollah supports the 
regime operationally with personnel and weapons--as does Iran. Their 
continued support of the Assad regime has led to recent regime momentum 
and gains on the ground.
    Question. In your view, what are the prospects of a negotiated 
solution in Syria?
    Answer. A negotiated settlement is a preferred path to achieving 
our policy objectives. However, its prospects are diminished by the 
sectarian character of the conflict. Assad is further emboldened by 
Russia's continued support. The reality of disparate opposition groups, 
many at odds with U.S. values, also make it difficult to achieve a 
negotiated settlement.
    Question. In your view, is the momentum currently on the side of 
the Assad regime or the forces fighting to overthrow Syria?
    Answer. Momentum shifts are characteristic of this form of 
protracted conflict. The fragmentation of the opposition undermines 
their momentum. The Assad regime is supported by Hezbollah, Iran, and 
Russia, which has helped the regime regain some areas that they once 
ceded.
    Question. Are there asymmetric options that bypass Syria's 
integrated air defense system rather than kinetically neutralize it, 
such as standoff weapons and/or stealth, and what is your assessment of 
those options from a military perspective?
    Answer. We have a wide range of options. These details of these 
options are better discussed in a classified setting.
    Question. What are the risks associated with doing nothing to alter 
the balance of military power in Syria between Assad and the armed 
opposition?
    Answer. We have learned from the past 10 years that it's not enough 
to simply alter the balance of military power without careful 
consideration of what's necessary in order to preserve a functioning 
state. That said, we are taking actions to support the moderate 
opposition so that they can alter the balance of military power. If we 
were to end all our support to our allies and to the opposition, we 
might expect the suffering to worsen and the region to further 
destabilize.
            the 2001 authorization for use of military force
    Question. What is your understanding of the scope and duration of 
the 2001 Authorization for Use of Military Force (AUMF)?
    Answer. The United States is in an armed conflict against al Qaeda 
and its associated forces. An associated force is defined as a group 
that: (1) is an organized, armed group that has entered the fight 
alongside al Qaeda; and (2) is a co-belligerent with al Qaeda in 
hostilities against the United States or its coalition partners. These 
are the same terrorist threats that perpetrated the horrendous acts on 
U.S. soil on September 11, 2001, and the AUMF still serves as the legal 
basis under U.S. domestic law to employ military force against these 
threats.
    Question. What factors govern DOD determinations as to where the 
use of force is authorized, and against whom, pursuant to the AUMF?
    Answer. In May 2013, the President promulgated Presidential Policy 
Guidance (PPG) governing direct action against terrorist targets 
located outside the United States and areas of active hostilities. This 
document codifies and harmonizes the procedures necessary for DOD to 
conduct these types of military operations. The PPG and its derivative 
operational plans clarify, formalize and strengthen the standards, 
policies, and determinations of DOD concerning where, how, and against 
whom military force may be utilized outside the United States and areas 
of active hostilities. DOD meticulously follows the formalized 
procedures of the PPG to ensure we make well-informed decisions based 
on the most up-to-date intelligence and the expertise of our national 
security professionals. Senior commanders and their legal advisors 
carefully review all operations for compliance with U.S. and 
international law before a decision is rendered by the Secretary of 
Defense or the President.
    Question. Are you satisfied that current legal authorities, 
including the AUMF, enable the Department to carry out counterterrorism 
operations and activities at the level that you believe to be necessary 
and appropriate?
    Answer. The AUMF in its current form provides the necessary and 
sufficient authorities to counter al Qaeda and its associated forces. 
If a terrorist threat emerges that does not fit within the AUMF, DOD 
would consult with Congress and facets of the executive branch on the 
question of authorities.
                                al qaeda
    Question. What is your assessment of the threat posed by al Qaeda 
affiliates to the U.S. Homeland, U.S. interests overseas, and western 
interests more broadly? Which affiliates are of most concern?
    Answer. Years of sustained counterterrorism (CT) pressure have 
degraded the ability of al Qaeda's Pakistan-based leadership to operate 
freely. Our efforts have made it difficult for al Qaeda to replenish 
its senior ranks with the type of experienced leaders, trainers, and 
attack planners it promoted in previous years. We have also limited the 
group's ability to mount sophisticated, complex attacks in the West. 
Despite these setbacks, al Qaeda retains its intent, though not the 
robust capability, to plan and conduct terrorist attacks against the 
West. Al Qaeda core continues to inspire and guide its regional nodes, 
allies, and like-minded extremists to engage in terrorism. Al Qaeda in 
the Arabian Peninsula remains committed to attacking our interests in 
the region and is the most likely group to attempt an attack in the 
United States in the near-term.
              yemen and al qaeda in the arabian peninsula
    Question. What is your assessment of the current U.S. strategy in 
Yemen and what is your understanding of the role of DOD within that 
strategy?
    Answer. Our overall engagement strategy with Yemen combines 
diplomatic, economic, and security initiatives to improve stability and 
security. DOD fills a critical role in this strategy primarily by 
supporting the development of the Yemeni armed forces. We are fostering 
a strong partnership with the Yemeni military to better address 
critical security threats, including the campaign against al Qaeda in 
the Arabian Peninsula (AQAP). The security situation in Yemen remains 
fragile and we must continue our partnership in the fight against AQAP.
    Question. Given the continuing political instability and slow 
progress of reforms to the military in Yemen, what are your views on 
the United States continuing to provide security assistance--most 
significantly DOD section 1206 funding--to Yemeni counterterrorism 
forces?
    Answer. A stable, unified, and economically viable Yemen, free of 
violent extremists, remains in our best interest. We have just passed 
the first anniversary of a 2-year plan to complete the government and 
military transition from the Saleh regime to a new representative 
system. While progress has been slow, President Hadi and the military 
are taking steps to reform and restructure the military as part of the 
overall political transition process. President Hadi and senior Yemeni 
military figures actively engage the United States for support and 
advice on the military reorganization process. The 1206 funds are, and 
will remain, critical to building the capacity of the Yemeni counter 
terrorism forces to disrupt and degrade the AQAP operational space, 
securing their boarders, and disrupting maritime and land smuggling 
routes.
                         somalia and al shabaab
    Question. What is your assessment of the threat posed by al 
Shabaab?
    Answer. Al Shabaab remains on the defensive. The coalition among 
Somali Government, the African Union Mission in Somalia (AMISOM), and 
Ethiopian National Defense Forces maintain pressure on the group. 
Despite its loss of territory in 2012, al Shabaab has demonstrated a 
continued ability to conduct complex attacks against Western interests 
and Somali Government targets in Mogadishu. The group also conducted 
small and medium scale attacks in Kenya. This trend will likely 
continue throughout the rest of 2013, despite increasingly public 
disputes amongst al Shabaab senior officials.
    Question. In your view, does al Shabaab pose a threat to the United 
States and/or western interests outside of its immediate operational 
area?
    Answer. Al Shabaab does not pose a direct threat to the Homeland or 
Europe at present. Nevertheless, the group poses an ongoing threat to 
U.S., Western, and other allied interests in East Africa. In February 
2012, al Shabaab and al Qaeda leader Ayman Zawahiri announced al 
Shabaab's merger with al Qaeda. Although the group is aligned with al 
Qaeda's global jihadist objectives, al Shabaab focuses on defending 
territory in Somalia against the coalition of Somali Government, the 
AMISOM, and Ethiopian military forces--as well as conducting attacks in 
East Africa.
    Question. What is your understanding of the current U.S. strategy 
in Somalia and the role of DOD in that strategy?
    Answer. The current U.S. strategy in Somalia consists of three 
elements: (1) supporting the AMISOM to combat al Shabaab, increase 
stability and promote the institutional building of the Somali Federal 
Government; (2) strengthening the new Somali Federal Government with 
stabilization and economic recovery assistance in parallel with 
humanitarian assistance; and (3) building a durable and responsive 
central Somali Government while engaging with other Somali regional 
actors such as Somaliland and Puntland (the ``dual track policy''). The 
DOD role in support of the State Department is to increase AMISOM 
capacity to combat al-Shabaab, engage with the new Somali National 
Army, and develop ways to increase security. These efforts enable 
Somali Government institutions and organizations to mature.
    Question. Should the United States establish military-to-military 
relations and consider providing assistance to the Somali national 
military forces?
    Answer. We are prepared to establish military-to-military relations 
with the new Somali National Army. This supports the State Department 
in recognizing and strengthening the Somalia Federal Government. We 
plan to continue assistance to our partner nations in the AMISOM while 
exploring ways to assist the Somali National Army. Short-term Somali 
stability depends on AMISOM, and long-term security requires a 
professional and accountable Somali National Army based on the rule of 
law.
                    al qaeda in the islamic maghreb
    Question. What is your assessment of the threat posed by al Qaeda 
in the Islamic Maghreb (AQIM)?
    Answer. AQIM and its allies have proven resilient despite the 
French-led military intervention in Mali. Although these groups no 
longer control key strategic towns, they retain the capability to 
launch sporadic attacks within Mali and neighboring countries, expand 
their safe haven, and attract recruits in pursuit of a hard-line 
Islamic state based on al Qaeda ideology. Further, AQIM will likely 
continue to bolster its ties to al Qaeda-associated terrorist groups 
throughout the region, such as Boko Haram in Nigeria, to influence and 
support attack planning. AQIM will continue to pose a local and 
regional threat into 2014, as North African Governments struggle to 
disrupt AQIM movement across expansive, porous borders.
    Question. In your view, does AQIM pose a threat to the United 
States and/or western interests outside of its immediate operational 
area? What capacity has AQIM demonstrated to plan and carry out actions 
threatening U.S. interests?
    Answer. AQIM does not presently pose a significant threat to the 
U.S. Homeland. We see no indications the group views conducting attacks 
outside North Africa and the Sahel as a priority in the near term. 
However, the group remains a credible threat to U.S. and western 
interests within North and West Africa, where it has conducted or 
attempted attacks in several countries (i.e. Mali, Niger, Algeria, 
Mauritania). AQIM will likely continue to bolster its ties to al Qaeda-
associated terrorist groups throughout the region, such as Boko Haram 
in Nigeria, to influence and support attack planning.
    Question. In your view, what has been the impact of the recent 
expansion of AQIM's area of operations in northern Mali on the group's 
capacities and aims?
    Answer. The expansion of AQIM in Mali between early 2012 and 
January 2013 increased the group's capacity as it collaborated with 
splinter groups al-Tawhid wa al-Jihad in West Africa, al-Mulathamun 
battalion, and Tuareg rebel group Ansar al-Din (AAD). This expansion 
reflects an increase in the group's membership. This growth has not 
changed the group's regionally-focused aim of establishing shari'a 
throughout North Africa. We continue to work with allies and partners 
to provide a more permanent security solution to AQIM expansion into 
the Sahel by supporting several regional efforts, including: The French 
Operation Serval; the Economic Community of West African States 
African-led Intervention Force in Mali; and the Multidimensional 
Integrated Stabilization Mission in Mali.
    Question. What is your assessment of the importance of security 
assistance to address the growing AQIM presence in southern Libya?
    Answer. North African countries struggle to cooperate and 
coordinate CT operations, creating exploitable security seams across 
expansive, porous borders. Preserving security assistance is critical 
to enabling Libya to build the internal capacity to address these 
challenges. Security assistance is just one piece of a larger effort 
that includes law enforcement, justice system reform, and border 
control. However, our ability to provide assistance will require 
patience. Tripoli currently lacks the institutions to integrate 
security assistance or the mechanisms to allocate aid. Tripoli 
primarily relies on armed militias for security, many operating outside 
of central government control and some which are complicit in AQIM-
linked activities including weapons smuggling.
    Question. What authorities will most quickly help address the 
threat in southern Libya?
    Answer. For counterterrorism and border security efforts we are 
using 1206 and 1208 authorities, along with the Global Security 
Contingency Fund. No further authorities are needed at this time in 
order to address the situation in southern Libya.
    Question. Does DOD require any new authorities for this situation?
    Answer. No, our 1206, 1207, and 1208 authorities give us the 
appropriate means to provide targeted security assistance to address 
emerging threats. However, these authorities have not functioned as 
efficiently as they should. They have been constrained by the 
bureaucratic sluggishness that has often limited U.S. responsiveness to 
our partners, and has on occasion prevented us from taking full 
advantage of opportunities for stronger partnerships against common 
threats in North Africa and throughout the Middle East since the ``Arab 
Spring'' began. For example, the equipment from a 2009 1206 case for 
Tunisia was just delivered this past spring--though 1206 cases are 
meant to address near-term CT threats. Most of these delays are caused 
by the bureaucratic inefficiencies between DOD and the Department of 
State (DOS). We continue to pursue changes that will lead to greater 
responsiveness and bolster our efforts in Libya, and the region in 
general.
                                  nato
    Question. At the NATO Summit in Chicago in 2012, President Obama 
called the Alliance the ``bedrock of our common security'' for over 65 
years. At the same time, concerns have been raised about the decline in 
defense spending by a number of NATO member countries, resulting in the 
United States accounting for approximately 75 percent of defense 
spending among NATO member countries.
    In your view, how important is the NATO alliance to U.S. national 
security interests?
    Answer. The NATO alliance is of critical importance to the national 
security interests of the United States. The combined military 
capabilities of the 28 NATO members are second to none. NATO and its 
allies possess the capability to deploy and sustain highly trained, 
interoperable forces that are able to conduct full spectrum military 
operations anywhere in the world.
    Question. In your view, what impact have national defense budget 
cuts had on the capabilities of the NATO alliance, and what do you 
believe needs to be done to address any capability shortfalls?
    Answer. Cuts our allies are making to their defense budgets are 
reducing the alliance's ability to confront security challenges and 
placing at risk NATO's ability to sustain concurrent operations. NATO 
has mitigated this underinvestment by a heavy and growing reliance on 
U.S. capabilities, but this trend poses risks to the future strength of 
the alliance. Our allies need to focus their resources on alliance 
required capabilities. As their economies improve, they need to 
increase their defense spending.
    Question. What are the greatest opportunities and challenges that 
you foresee for NATO in meeting its strategic objectives over the next 
5 years?
    Answer. The greatest opportunity for NATO to meet its strategic 
objectives over the next 5 years is to maintain the unprecedented level 
of readiness and interoperability achieved over the last 10 years of 
combat operations in Afghanistan. The Alliance is working to attain 
that goal through expanded education and training, increased number of 
exercises, and better use of technology. The greatest challenge of 
course lies within the ability of the 28 nations to provide the funding 
and resources required to implement those initiatives and to continue 
to develop the capabilities needed to meet future challenges.
    Question. In your view, is there a continuing requirement for U.S. 
nuclear weapons to be deployed in NATO countries?
    Answer. Yes. NATO's Strategic Concept states NATO's commitment to 
the goal of creating the conditions for a world without nuclear 
weapons. However, it also made clear that as long as there are nuclear 
weapons in the world, NATO will remain a nuclear Alliance. NATO's 2012 
Deterrence and Defence Posture Review confirmed that nuclear weapons 
are a core component of NATO's overall capabilities for deterrence and 
defense alongside conventional and missile defense forces. The review 
showed that the Alliance's nuclear force posture currently meets the 
criteria for an effective deterrence and defense posture.
    Question. What strategy, if any, do you feel should be used to 
address declining defense budgets, as a percentage of gross domestic 
product (GDP), in Europe?
    Answer. The longstanding and agreed NATO guideline for each ally is 
to spend 2 percent of GDP on defense. This provides a basis for 
comparing defense spending, but what really matters is how each nation 
allocates its defense resources. It is important to assess whether 
alliance members are procuring the appropriate quantity and quality of 
capabilities to meet identified NATO requirements. During this period 
of fiscal constraint, allies need to rigorously prioritize their 
defense investment with a focus on Alliance capability requirements. 
When economies improve, they should increase their investment.
                      u.s. force posture in europe
    Question. DOD continues to review its force posture in Europe to 
determine what additional consolidations and reductions are necessary 
and consistent with U.S. strategic interests.
    How would you define the U.S. strategic interests in the European 
area of responsibility (AOR)?
    Answer. NATO will remain our Nation's preeminent multilateral 
alliance and continue to drive our defense relations with Europe. 
Through the new Strategic Concept, we defined a clear role for NATO in 
the years ahead, including space and cyberspace security, Ballistic 
Missile Defense, counter-trafficking and nonproliferation.
    Question. Do you believe that additional consolidation and 
reductions of U.S. forces in Europe can be achieved consistent with 
U.S. strategic interests in that AOR?
    Answer. I fully support the U.S. Army Europe plans to reduce its 
footprint from 16 garrisons to 7 garrisons by 2017. Regarding any 
additional reductions, we must ensure that our posture adapts to 
changes in the international security environment. Currently, there are 
several studies reviewing U.S. posture in Europe to include an internal 
DOD European Infrastructure Consolidation study and a congressionally-
directed independent assessment of the overseas basing presence (NDAA 
for Fiscal Year 2012, section 347).
             u.s. force posture in the asia-pacific region
    Question. The Department continues the effort to rebalance toward 
the Asia-Pacific as announced in the January 2012 Strategic Defense 
Guidance.
    Are you satisfied with the rebalance efforts to date?
    Answer. Yes. Despite the impact of sequestration, we continue to 
make progress on our key priorities in the Asia-Pacific. We are 
modernizing and strengthening our alliances and partnerships through 
multi-lateral and bilateral exercises while enhancing our engagement 
with region-wide institutions. We are enhancing our presence in the 
region by maintaining a defense posture that is more geographically 
distributed, politically sustainable, and operationally resilient. We 
are strengthening our military capabilities by sustaining investments 
critical to our ability to project power in support of security 
commitments.
    Question. What do you see as the U.S. security priorities in the 
Asia-Pacific region over the next couple of years and what specific 
capabilities or enhancements are needed in to meet those priorities?
    Answer. Our security priorities are those inherent in the 
rebalance: modernizing and strengthening our alliances, enhancing our 
presence, and pushing more quality forward in terms of capabilities. 
These efforts will enable us to shape partnerships and deter and 
respond as necessary to the threats in the region. We will continue to 
deter North Korea's continued provocative behavior. We will leverage 
our presence to mitigate tensions and encourage responsible behavior in 
the land and maritime territorial disputes such as exist in the East 
and South China Seas. We will need to deter disruptive activities in 
space and cyber space that have and will continue to become more 
sophisticated and damaging. Our forward presence and engagements are 
our overarching ways to address these challenges. Our people are our 
most valuable asset for building relationships. Special Operations 
Forces, cyber, and intelligence, surveillance, and reconnaissance are 
key capabilities I see for the near future.
    Question. Do the budget cuts and resource constraints associated 
with sequestration threaten your ability to execute the rebalance to 
the Pacific?
    Answer. To this point, budget reductions have not threatened our 
ability to rebalance to the Asia-Pacific. However, full sequestration 
may limit or delay the strategic alignment of our engagement and 
capabilities. Some key relationships may take longer to develop due to 
constraints on education and exercises. At the same time, fiscal 
realities afford an opportunity to ensure we are putting the right 
resources in the right places, at the right times. We will continue our 
steady, thoughtful, and measured rebalance to the region.
    Question. What is your assessment of the strategic consequences, 
including impact on relationships with partners and allies, if 
sequestration results in a ``rebalance'', that is, a net reduction in 
military assets in the U.S. PACOM AOR?
    Answer. Rebalance is intended as a net increase in military 
capability to the Asia-Pacific region. That said, the essence of 
rebalance is about more than hardware. It is about more engagement and 
attention. With the looming impact of sequestration on readiness and 
engagement, our ability to expand military to military partnerships and 
build partner capacity will be reduced, limiting our ability to develop 
and expand the scope and quality of critical relationships.
               security situation on the korean peninsula
    Question. What is your assessment of the current security situation 
on the Korean peninsula and of the threat posed to the United States 
and its allies by the current state of North Korea's ballistic missile 
and nuclear weapons capabilities?
    Answer. The security situation on the Peninsula is stable at the 
moment. However, I am concerned that we are in a period of prolonged 
provocation. North Korea military activity is at seasonal normal 
levels. North Korea has toned down rhetoric since the height of 
tensions in April of this year and appears to be engaged in diplomatic 
overtures, perhaps to win concessions. I remain concerned with North 
Korea's development of ballistic missiles, nuclear weapons and 
bellicose rhetoric threatening to use these weapons; however, we do not 
have any indications of imminent use of ballistic missile or nuclear 
capabilities at this time.
    Question. In your view, are there additional steps that DOD could 
take to ensure that North Korea does not proliferate missile and 
weapons technology to Syria, Iran and others?
    Answer. Currently, DOD is taking the appropriate steps to prevent 
proliferation. We support interagency efforts to prevent North Korea 
proliferation through WMD nonproliferation regimes including the 
Australia Group (CW/BW), Missile Technology Control Regime, Hague Code 
of Conduct Against Ballistic Missile Proliferation and Nuclear 
Suppliers Group. These regimes use customs and law enforcement 
practices such as export control lists to interrupt proliferation of 
WMD materials to Syria, Iran, and others from North Korea. 
Additionally, DOD supports interagency counter-proliferation efforts 
through involvement with the Proliferation Security Initiative and 
geographic combatant commander support for potential interdictions. I 
remain open to additional options for improving our contribution to 
countering proliferation.
    Question. Are you satisfied that the U.S.-Republic of Korea (ROK) 
combined counter-provocation plan, which was finalized a couple of 
months ago, strikes the right balance between enabling the South 
Koreans to respond to and defend against a provocation from North Korea 
while ensuring that the United States is involved in any decisions that 
might widen the military action to include U.S. forces?
    Answer. Yes. The plan allows for the sovereign right of self-
defense by the Republic of Korea in a timely and proportional manner 
without undue escalation and without violating the terms of the 
Armistice Agreement. Should the circumstances require or justify 
additional response, a bilateral U.S.-ROK consultative mechanism is in 
place to reach a suitable decision together. However, the situation on 
the Peninsula is always rife for miscalculation on all sides. U.S. 
deterrent forces, and the close relationship USFK enjoys with the ROK 
Government, are our strongest mitigation against escalation.
    Question. What is your view regarding the timing of transfer of 
wartime operational control from the United States to the ROK, 
currently scheduled for December 2015, and do you support the transfer 
as scheduled?
    Answer. I support the transfer as scheduled. From a military 
perspective, the timing of the transfer of wartime operational control 
is appropriate. The conditions for the transfer are based on meeting 
capability-based milestones, including acquisition of weapon systems, 
command and control systems, ISR platforms, appropriate and adequate 
supply of munitions, along with the right certification process to 
validate the readiness for the transfer. The ROK military is a very 
capable force, but it has had some setbacks in funding to achieve these 
milestones. General Thurman and his team at U.S. Forces-Korea are 
working hard with the ROK Joint Chiefs of Staff to meet the 
certification and capability requirements.
                                 china
    Question. In the past several months, the United States and China 
have had several high level engagements, including President Obama's 
meetings with President Xi last month and your visit to China in April.
    In view of these engagements, what is your assessment of the 
current state of the U.S.-China military relationship and your views 
regarding China's interest in and commitment to improving military 
relations with the United States?
    Answer. Healthy, stable, reliable, and continuous military-to-
military relations are in both nations' interest and are an essential 
part of the overall relationship. There are recent examples where we 
have improved practical cooperation, such as counter-piracy, 
humanitarian assistance, disaster relief and military medicine 
exchanges. However, a deeper U.S.-China military-to-military dialogue 
is needed to address many of the sources of insecurity and potential 
competition that may arise as our two forces come into closer and more 
frequent contact.
    Question. How has China's aggressive assertion of territorial and 
maritime claims, particularly in the South China Sea and East China 
Sea, effected security and stability in the region?
    Answer. The United States has a national interest in the 
maintenance of peace, stability, respect for international law, freedom 
of navigation, and unimpeded lawful commerce. While the United States 
does not take sides in any territorial disputes, any such disputes must 
be resolved without coercion or the use of force. We strongly support 
dispute resolution on the basis of existing international mechanisms 
and in accordance with established international norms and 
institutions. At the same time, beginning serious negotiation on a Code 
of Conduct for interaction in disputed maritime territories will 
significantly reduce tension and potential for conflict across the 
region. We have made it clear to China that we have commitments to 
allies and partners and will continue our engagement while maintaining 
our posture across the Asia Pacific.
    Question. If reconfirmed, what will be your priorities vis-a-vis 
China?
    Answer. Positive and constructive engagement with China is a key 
part of our strategy in the Asia Pacific. In support of this, my 
priorities include a healthy, stable, reliable, and continuous 
military-to-military relationship. I will also work towards a model of 
relations where communications are not cut off when difficulties arise, 
which is precisely the time that communication and dialogue are the 
most important. Finally, we need increased cooperation, channels of 
communication, and interactions between the two militaries to improve 
our partnership and reduce the risk of miscalculation, miscommunication 
or accidents. I will give particular emphasis to improving the quality 
of our strategic dialogue and supporting the establishment of norms for 
behaviors in cyberspace.
   intelligence, surveillance, and reconnaissance (isr) capabilities
    Question. Despite the ongoing drawdown in Afghanistan, demand for 
intelligence, surveillance, and reconnaissance capabilities of every 
kind remains very high due to the enhanced situational awareness and 
targeting capabilities they bring to our commanders. Almost all of the 
geographic combatant commands still have validated ISR requirements 
that are not being met.
    What is your assessment of the Department's current disposition of 
ISR assets across the various combatant commands?
    Answer. I think we have maximized and optimized our ISR capability. 
We remain focused on our #1 priority, supporting the warfighters in 
Afghanistan. At the same time, we are supporting the rebalance to the 
Asia-Pacific region while provided necessary capabilities to counter 
emerging extremist threats in AFRICOM's AOR. Prioritization is key to 
providing flexible and responsive forces.
    Question. As our forces are withdrawn from Afghanistan, will 
existing ISR assets be re-postured to support combatant command needs 
in other regions, or will the ISR capacity be reduced?
    Answer. In short, both. The fiscal year 2015 Global Force 
Management Allocation Plan is the first in which we begin to 
``reposture'' ISR forces. Full Motion Video, Signals Intelligence, and 
Imagery Intelligence, among others, are valuable in any AOR. But many 
of the assets are very niche, and it will be difficult to translate 
their applicability in Afghanistan to other parts of the world. 
Budgetary pressures further constrain meeting combatant command 
requirements. Because of this, our total ISR force, quantitatively, 
will be diminished in fiscal year 2015 and beyond. But the technologies 
developed and lessons learned in Afghanistan will build a decidedly 
more capable, if smaller, global ISR force.
    Question. Most of the highest-value ISR assets acquired after 
September 11 are aircraft that were not designed to be survivable in 
high-threat air defense environments, although in some cases unmanned 
aerial vehicles were designed to be deployed in large numbers in the 
expectation of substantial combat attrition.
    Do you believe that the Department needs a major shift towards ISR 
platforms that are survivable in high-threat situations, or merely an 
augmentation of the capabilities we now have, with the assumption that 
air superiority can be gained rapidly enough to operate today's assets 
effectively?
    Answer. The ISR assets we have in the Joint Force today are ready 
to perform missions across a range of warfighting scenarios. As we move 
toward the Joint Force of 2020, we will increasingly need ISR platforms 
that are survivable and can counter sophisticated adversaries defenses.
                       special operations forces
    Question. The previous two QDRs have mandated significant growth in 
our Special Operations Forces (SOF) and enablers that directly support 
their operations.
    Do you believe that QDR directed growth in the size of SOF should 
be retained despite current budgetary pressures?
    Answer. Growth in Special Operations Forces capability has been 
necessary to meet the demands of the global conflicts in which we have 
been engaged over the past decade. We will judiciously balance the need 
for further growth in SOF with our need to address other capability 
demands in light of increased budgetary pressures. As a consequence, I 
do not expect additional, significant growth beyond what has already 
been programmed.
    Question. In recent years, Special Operations Forces have taken on 
an expanded role in a number of areas important to countering violent 
extremist organizations, including those related to information and 
military intelligence operations. Some have advocated significant 
changes to U.S. Special Operations Command's (SOCOM) title 10 missions 
to make them better reflect the activities Special Operations Forces 
are carrying out around the world.
    What current missions, if any, do you believe can and should be 
divested by SOCOM, and why?
    Answer. At this time, I do not advocate for significant changes to 
SOCOM's title 10 missions. I use a range of processes--such as the 
Unified Command Plan, Guidance for the Employment of the Force, and 
Joint Strategic Capabilities Plan--to review the mission sets and 
responsibilities assigned to SOCOM on a continuing basis. Additionally, 
the language in section 167 of title 10, U.S.C., includes ``such other 
activities as may be specified by the President or the Secretary of 
Defense,'' which provides the President and the Secretary of Defense 
the flexibility needed to meet rapidly changing circumstances.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, what are they and why do you advocate adding 
them?
    Answer. Pending a review of strategic planning documents, I do not 
advocate for SOCOM to assume any additional missions at this time. 
Special Operations Forces already provide a broad but uniquely 
specialized range of support to Joint Force Commanders. They are 
trained to conduct operations including counterterrorism, 
unconventional warfare, direct action, special reconnaissance, foreign 
internal defense, and counter-proliferation of weapons of mass 
destruction, in areas under enemy control or in politically sensitive 
environments. In such environments, SOF provides unique and essential 
capabilities, and we will continue to leverage lessons learned in our 
Decade of War studies to enhance SOF and General Purpose Force 
integration.
    Question. What can be done to ensure that indirect special 
operations missions with medium- and long-term impact, such as 
unconventional warfare and foreign internal defense, receive as much 
emphasis as direct action, and that they receive appropriate funding?
    Answer. In addition to developing specific Joint Doctrine on 
Unconventional Warfare, I have placed considerable emphasis on many 
aspects of foreign internal defense in my Capstone Concept for Joint 
Operations. I appreciate the significant legislative support for the 
many security force assistance and training and equipping missions that 
SOF undertakes. One area that may require enhanced legislative 
authorities is for greater opportunities to leverage non-SOF units to 
undertake partner capacity building tasks.
                     special operations authorities
    Question. Reportedly, the Commander of SOCOM has sought more 
control over the deployment and utilization of Special Operations 
Forces. For example, the Secretary of Defense recently modified policy 
guidance for the combatant commands that gave SOCOM, for the first 
time, responsibility for resourcing, organizing, and providing guidance 
to the Theater Special Operations Commands of the geographic combatant 
commanders and Special Operations Forces assigned to them. It has been 
reported that the Commander of SOCOM is also seeking new authorities 
that would allow him to more rapidly move Special Operations Forces 
between geographic combatant commands.
    Please provide your assessment of whether such changes are 
appropriate and can be made without conflicting with civilian control 
of the military, infringing upon authorities provided to the geographic 
combatant commanders, or raising concerns with the State Department.
    Answer. Special Operations Forces do not undertake operations 
without the approval of the President, the Secretary of Defense, the 
geographic combatant commanders, and the Chiefs of Mission. The 
proposed changes enhance the ability of our global Special Operations 
Forces to network with our U.S. interagency counterparts as well as our 
foreign allies and partners. I fully support a more efficient and 
effective ability of our Special Operations Forces to more dynamically 
respond to global demands in the future.
                          combating terrorism
    Question. The administration recently released its National 
Strategy for Counterterrorism. This strategy highlights the need to 
maintain pressure on al Qaeda's core while building the capacity of 
partners to confront mutual threats. The strategy also underscores the 
need to augment efforts to counter threats from al Qaeda-linked threats 
``that continue to emerge from beyond its core safe haven in South 
Asia.''
    How do you view the DOD's role under the new National Strategy for 
Counterterrorism?
    Answer. The United States pursues a comprehensive approach to 
counter terrorist networks that threaten our Nation. The military is 
one element of this effort. DOD works closely with interagency 
stakeholders and key partners and allies to combat those threats beyond 
South Asia in support of the strategy. Training, advising, and 
assisting partnered forces allows us to leverage our unique Defense 
capabilities outside of the Afghanistan theater of operations. The 
Department implements rigorous guidelines, standards and accountability 
for lethal action against terrorist networks who threaten our Nation.
    Question. What is your understanding of the impact of the 
Presidential Policy Guidance on Counterterrorism on DOD's role within 
the U.S. Government's counterterrorism strategy?
    Answer. The recently signed Presidential Policy Guidance on 
Counterterrorism is a codification of policies and procedures that have 
been applied for some time. The guidance clarifies, formalizes, and 
strengthens the standards and processes we use. Military capabilities 
are one part of our comprehensive counterterrorism effort. We will 
continue to enable our allies to develop the capability to counter 
terrorists within their borders. When necessary and after a robust and 
accountable review process, we can take direct action against those 
specific terrorist networks that threaten U.S. persons. Our current 
authorities are sufficient to defend the Nation against existing 
terrorist threats. The Department implements a rigorous, transparent 
and accountable review process. We will scrupulously adhere to the rule 
of law and the highest ethical standards in implementing the strategy 
and guidance.
    Question. Will DOD see its role increase or decrease?
    Answer. The best way to defeat terrorism is with a comprehensive 
approach. DOD will continue to play a significant role in 
counterterrorism. The presidential policy framework codifies rigorous 
guidelines, oversight and accountability for targeted, lethal action 
against specific terrorist networks that threaten our Nation. The 
military also conducts a range of activities to build partner capacity 
and support other government agency efforts.
    Question. If the role increases, what, if any, are the commensurate 
increases in capabilities or capacities that are required?
    Answer. DOD will continue to develop new capabilities, 
technologies, and tactics as well as streamlined processes and 
procedures to ensure we stay ahead of our enemies as they also adapt. 
Joint Force 2020 must include and integrate innovative capabilities 
such as cyber, Special Operations Forces and intelligence, 
surveillance, and reconnaissance platforms.
    Question. Will DOD require any new authorities?
    Answer. I believe that existing authorities are adequate. Should a 
new group threaten the United States, we can respond as necessary under 
U.S. domestic and international law. I have not encountered a situation 
during my tenure as Chairman in which we did not have the necessary and 
sufficient authorities. If confirmed and this occurred during my 
tenure, I would consult within the executive and with Congress to 
determine whether additional authorities or tools have become necessary 
or appropriate.
    Question. Are there steps DOD should take to better coordinate its 
efforts to combat terrorism with those of other Federal departments and 
agencies?
    Answer. Improving interagency coordination was a key finding in our 
Decade of War study. The Joint Staff regularly and actively 
participates in both the National Security Staff's Counterterrorism 
Security Group and the President's Counterterrorism Board of Directors. 
Our combatant commands support our efforts and work closely with U.S. 
Embassies, interagency partners, and local actors. Institutionally, the 
Department is deliberately and carefully integrating lessons learned in 
our doctrine, training, planning and operations. We seek to support 
similar efforts where and when they exist in other organizations.
    Question. What do you view as the role of DOD in countering al 
Qaeda and affiliated groups in cyberspace?
    Answer. Defense of cyberspace requires a public-private effort to 
provide the best protection possible for our Nation. We are making 
significant progress. Cyber is an essential capability for Joint Force 
2020. DOD works with interagency and commercial partners in order to 
counter threats from non-state actors in cyberspace and other domains. 
We will continue to employ a robust defensive posture on our military 
networks. In the event of a cyber attack, DOD has processes in place to 
identify it with interagency partners, defend against the attack, and 
share information with industry to mitigate effects.
                international peacekeeping contributions
    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, then U.S. Ambassador to 
the United Nations, stated that the United States ``is willing to 
consider directly contributing more military observers, military staff 
officers, civilian police, and other civilian personnel--including more 
women I should note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
more military personnel to both staff positions and military observers 
in support of U.N. peacekeeping operations?
    Answer. In Afghanistan, our military commitment is shifting from 
combat operations to maintaining a long-term relationship with the 
people of Afghanistan in concert with our NATO allies. This mission 
shift allows us to consider other opportunities for U.S. forces and 
personnel to contribute to U.N. peacekeeping missions around the world 
on a very selective basis and under the right conditions. Our 
experience shows that even a small number of U.S. personnel can play an 
out-sized role in improving the effectiveness of U.N. operations.
    Question. If confirmed, would you support identifying methods 
through which the DOD personnel system could be more responsive to 
requests for personnel support from multilateral institutions like the 
United Nations?
    Answer. We have been responsive to requests from the U.N. for 
personnel support. This year, for the first time in nearly 2 decades, a 
U.S. general officer is helping to lead peacekeepers in a U.N. field 
mission. By all accounts, this officer has done a terrific job in 
Liberia. He is even supervising members of the Chinese People's 
Liberation Army. Additionally, when the U.N. requested U.S. officers 
for the new mission in South Sudan, U.S. Africa Command provided three 
of its own staff officers to deploy immediately until the Services 
could provide long-term fills. We are currently working with Africa 
Command on a similar solution for the mission in Mali. As I told 
Secretary General Ban Ki-moon during his visit this spring, we look 
forward to exploring even more opportunities to offer our leaders in 
support of the U.N. and other multilateral institutions.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. Among other lessons, it seems clear to me that we have 
learned that countering insurgent and terrorist threats demands the 
integration of all instruments of national power toward a common 
purpose. Over the past decade, our interagency coordination has been 
occasionally uneven due to policy gaps, inconsistent resources, and 
differences in organizational culture. While we struggled early on to 
harness the full extent of our whole-of-government effort, over time, 
our military and civilian organizations have learned to better leverage 
each other's strengths. If confirmed, I am committed to 
institutionalizing these lessons learned even as we reset and prepare 
for the future.
    Question. How do you believe these efforts can be improved?
    Answer. It begins with leadership. We've learned that we need to 
stress the value of interagency coordination at all levels. For DOD, 
this means exposing our military personnel to a range of interagency 
organizations to facilitate understanding of different agency cultures, 
equities, capabilities, and limitations. We also incorporate 
interagency partners into our training and education programs, building 
the kinds of relationships that increase our overall effectiveness. 
More can be done, and if confirmed, I will work with this Congress to 
enhance these programs.
    Question. How can the lessons learned in recent years be captured 
in military doctrine and adopted as ``best practices'' for future 
contingency operations?
    Answer. As Chairman, I led a ``Decade of War'' effort to examine 
this question and to ensure that we do not lose the lessons of 10 years 
of war. Codifying our work is key. Critical doctrinal publications such 
as Joint Pub 3-08, ``Inter-organizational Coordination during Joint 
Operations,'' capture the best practices of our recent experience. The 
current version was published in June 2011, and importantly, our 
interagency partners contributed to writing it. If confirmed, I plan to 
begin a formal update of this publication in the coming year.
    Question. Interagency collaboration on an operational or tactical 
level tends to address issues on a country-by-country basis rather than 
on a regional basis (e.g. international terrorists departing Mali for 
safe havens in Libya).
    How do you believe regional strategies that link efforts in 
individual countries can best be coordinated in the interagency arena?
    Answer. Our performance in crisis situations rests on how well we 
collaborate on a routine basis. Therefore, I support a whole-of-
government planning, operations and resourcing framework to ensure our 
country plans are mutually-reinforcing. The military develops Theater 
Campaign Plans and Functional Campaign Plans that address regional and 
trans-regional issues. We seek input from interagency partners in the 
development of these plans to de-conflict, if not complement efforts. 
State is beginning to develop Joint Regional Strategies to address 
regional foreign policy priorities and drive country strategies. This 
new regional perspective will improve our ability to coordinate DOD 
plans with State plans.
                       responsibility to protect
    Question. The U.S. Government has recognized the ``responsibility 
to protect'' (R2P)--that is, the responsibility of the international 
community to use appropriate means to help protect populations from 
genocide, war crimes, ethnic cleansing and crimes against humanity, by 
encouraging states to protect their own populations, by helping states 
build the capacity to do so, and by acting directly should national 
authorities fail to provide such protection. In its 2010 QDR, DOD names 
``preventing human suffering due to mass atrocities'' as one of a long 
list of potential contingencies that DOD might be called on to address. 
DOD has begun to explore some of the implications of R2P, by 
considering ``mass atrocity prevention and response operations''.
    In your view, how high a priority should the ``responsibility to 
protect'' be for the U.S. Government as a whole?
    Answer. Preserving the capacity of the United States and its 
partners to prevent human suffering is a means of promoting our values 
and strengthening our influence around the world. Although neither the 
United States nor any other country recognizes the ``responsibility to 
protect'' as a legal basis for the use of military force, the U.S. 
Armed Forces can carry out these types of missions if called upon to do 
so. Prioritization is not a decision for the military to make.
    Question. In your view, what should be the role of DOD, if any, in 
fulfilling the responsibility to protect?
    Answer. The role of DOD will be to support our government's policy 
decision. The whole-of-government approach should involve an 
appropriate mix of diplomatic, economic, and/or military measures. The 
role of DOD will be to provide options and assess the risk associated 
with those options. We will also make a recommendation on the strategy 
for any specific situation to include those involving atrocities.
    Question. In your view, what is the proper application of R2P 
doctrine with respect to the situation in Syria?
    Answer. The conflict in Syria is as complex as any I have seen. We 
have an obligation to think through the efficacy and consequences of 
any direct U.S. military action in Syria, especially if it could create 
conditions that would cause more civilian casualties, unleash chemical 
weapons, or bring the United States into a broader regional conflict. 
Even as we consider the use of force, we must continue to work with our 
allies and partners in the region to prevent their destabilization, 
provide humanitarian aid, and support the Syrian opposition. The United 
States is providing nearly $815 million in aid to help the victims of 
this conflict, including emergency medical care and supplies, food, and 
shelter.
        operation observant compass & the lord's resistance army
    Question. Despite pressure by the Ugandan People's Defense Forces 
(UPDF) and efforts by U.S. Special Operations personnel to support 
them, elements of the Lord's Resistance Army (LRA)--including Joseph 
Kony--continue to operate and commit atrocities against civilian 
populations in the Central African Republic, Democratic Republic of the 
Congo, and South Sudan. Some observers have identified operational 
concerns with this mission, including that: (1) supported forces are 
trying to find an elusive foe in an area roughly the size of 
California, much of which is covered in thick jungle; (2) technical 
support to U.S. forces and their UPDF partners from the defense and 
intelligence community continues to be inadequate; and (3) limitations 
continue to be placed on the ability of U.S. Special Operations 
personnel to accompany UPDF partners outside of main basing locations, 
thereby limiting the level of direct support they can provide.
    In your view, what is the objective of Operation Observant Compass?
    Answer. The strategy is comprised of four elements: (1) protect 
civilians; (2) promote DD/RRR (disarmament, demobilization, 
reintegration, repatriation, and resettlement); (3) increase 
humanitarian access/support; and (4) remove Joseph Kony and senior LRA 
leaders from the region. DOD plays a role in all four pillars but is 
the primary agent for implementing the fourth element.
    Question. Do you support the continuation of DOD's current level of 
support to this mission?
    Answer. In the near-term, the current level of military support is 
appropriate. DOD is currently weighing options to determine the future 
level of support. DOD must prioritize limited resources among numerous 
competing priorities, requirements and risks to other missions. Cost is 
another factor being considered given the current budget constraints.
                       human terrain in conflict
    Question. In 2009, then-Secretary Gates helped launch the Minerva 
Initiative and the Human Social Culture Behavior Modeling Program to 
develop deeper social, cultural, and behavioral expertise for policy, 
strategy and operational purposes in the Middle East and Far East.
    How have these programs contributed to our understanding the 
complex human terrain of these parts of the world?
    Answer. Yes. The Minerva Initiative examines the social and 
political dynamics of present and future conflict. Research conducted 
under its auspices validated the COMISAF policy of ``courageous 
restraint'' (e.g. exercise patience before using force); enriched our 
understanding of the radicalization processes, and produced a method 
for empirically characterizing tribal cohesiveness, a predictor of the 
susceptibility to al Qaeda influence. The Human Social Culture Behavior 
Modeling (HSCB) Program, which forecasts instability globally, has been 
fielded at PACOM, SOUTHCOM, STRATCOM, and SOCOM.
    Question. Are we adequately resourcing these programs and how can 
we improve our capabilities to understand the perceptions, attitudes, 
ethnic identities, religious beliefs and predispositions of the 
audiences we seek to reach and interact with in these regions?
    Answer. Although the HSCB Modeling program concludes its 4 year 
program in fiscal year 2013, we continue to fund many other social 
science research efforts. As we learned in Iraq and Afghanistan, 
cultural and regional skills are key to succeeding in Irregular 
Warfare. Accordingly, I have mandated that they be covered in at all 
levels of Joint Professional Military Education curricula and in Joint 
Doctrine publications on Stability Operations, Counterinsurgency 
Operations, and Special Operations.
       national strategy to combat transnational organized crime
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing. The Director of National 
Intelligence recently described transnational organized crime as ``an 
abiding threat to U.S. economic and national security interests,'' and 
stated that ``rising drug violence and corruption are undermining 
stability and the rule of law in some countries'' in the Western 
Hemisphere. In July 2011, the President released his Strategy to Combat 
Transnational Organized Crime: Addressing Converging Threats to 
National Security. One of the priority action areas designated in the 
strategy is ``enhancing DOD support to U.S. law enforcement.''
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The President's Strategy to Combat Transnational Organized 
Crime integrates all elements of national power to combat transnational 
organized crime and related threats to national security. Ultimately, 
the strategy seeks to reduce transnational organized crime to a 
manageable public safety concern.
    Question. What is your understanding of the Department's role 
within the President's strategy?
    Answer. DOD is not the lead agency responsible for combatting 
transnational organized crime. DOD instead plays an appropriate and 
critically important role supporting law enforcement to counter threats 
to national security.
    Question. In your view, should DOD play a role in providing support 
to the U.S. law enforcement and the Intelligence Community on matters 
related to transnational organized crime?
    Answer. DOD provides unique supporting capabilities to address the 
full range of transnational criminal threats, including military 
intelligence support to law enforcement, military-to-military 
capability development, and military operational activities against 
threats to the U.S. DOD supports U.S. law enforcement and the 
Intelligence Community as part of a whole-of-government approach, 
consistent with current authorities.
                       mass atrocities prevention
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10.
    Among interagency partners, what is DOD's role in addressing 
atrocity threats, and what tools does DOD have for preventing or 
responding to atrocities?
    Answer. DOD has developed Joint Doctrine for conducting Mass 
Atrocity Response Operations. Based on this doctrine, atrocity 
prevention and response is now incorporated into DOD plans and planning 
guidance. In addition, DOD has conducted a comprehensive review of 
training in this area and is working to strengthen the capacity of UN 
peacekeeping operations to respond to atrocity events.
    Question. Has DOD developed planning processes toward this effort 
so that it will be able to respond quickly in emergency situations?
    Answer. Yes, DOD has developed planning processes toward this 
effort. All DOD components have been directed to integrate atrocity 
prevention and response into their policies and plans. Specific plans 
are further developed and implemented at the geographic combatant 
command level, in coordination with the Office of the Secretary of 
Defense and the Joint Staff.
    Question. In your view, is the situation in Syria a mass atrocity?
    Answer. In my view, the situation in Syria is tragic and an 
atrocity. By some estimates as many as 100,000 combatant and non-
combatants have been killed, with over 5 million displaced.
                         counter threat finance
    Question. Identifying and disrupting key individuals, entities, and 
facilitation routes enabling the flow of money that supports terrorism, 
production of IEDs, narco-trafficking, proliferation, and other 
significant national security threats could have an outsized impact on 
confronting these threats. In August 2010, the Department issued a 
Counter Threat Finance (CTF) Policy Directive which recognized the CTF 
discipline as an essential tool in combating criminal networks and 
terrorist organizations and called for the integration of CTF 
capabilities into future force planning and the continued support to 
interagency partners conducting CTF operations.
    What is your assessment of the Department's efforts to date to 
institutionalize and support these capabilities?
    Answer. Upsetting the financial supply lines of our adversaries is 
a proven way to disrupt threats to U.S. national security. DOD Threat 
Finance Cells already have a track record of success in Iraq and 
Afghanistan. We need this capability in the Department. DOD Directive 
5205.14 (CTF), updated in November 2012, institutionalizes counter 
threat finance within DOD. Ultimately, our success in counter threat 
finance will depend on our ability to integrate efforts with other U.S. 
Government agencies, multinational organizations, and host nations.
    Question. What is your assessment of the current ability of the 
Department to provide support to other U.S. Government departments and 
agencies conducting counter threat finance activities?
    Answer. DOD currently supports the efforts of other government 
agencies with its unique capabilities, including long-term planning, 
network analysis, intelligence analysis and tools, and the integration 
of intelligence into operations. The result is a well-coordinated, 
capable, and robust counter threat finance posture. If confirmed, I 
will continue to remain fully engaged in the interagency process to 
counter threat finance activities.
    Question. What changes, if any, would you recommend to DOD's 
current counter threat finance efforts?
    Answer. The Department is examining its current counter threat 
finance efforts. We are focused on incorporating lessons learned from 
Iraq and Afghanistan and further strengthening and institutionalizing 
our counter threat finance capability. We may recommend additional 
training and education for the force.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent bills, authorizes the provision of support (including 
training, funding, and equipment) to regular forces, irregular forces, 
and individuals supporting or facilitating military operations by U.S. 
Special Operations Forces to combat terrorism.
    What is your current assessment of this authority?
    Answer. Combatant commanders continue to view section 1208 as a key 
tool in the ongoing fight against terrorism. The ability for Special 
Operations Forces to leverage willing partners who possess access to 
areas, people, and information denied to our forces is critical to 
tactical and strategic success. This authority has allowed us to 
respond quickly to global challenges while maintaining appropriate 
civilian oversight, including Secretary of Defense approval and 
congressional notification. The Department is appreciative of Congress' 
continued support for this authority. If confirmed, I will continue to 
keep you informed through our annual report and briefings.
             active-duty and reserve component end strength
    Question. Last year, DOD announced its 5-year plan to reduce 
Active-Duty end strengths by over 100,000 servicemembers by 2017, and 
the Reserve components by another 21,000 over the same period. These 
cuts do not include any additional personnel reductions that could 
result from sequestration or any agreement to avoid sequestration.
    What is your view of the role of the Reserve components as the 
Active components draw down?
    Answer. Twelve years of combat operations has transformed our 
Reserve component from a strategic reserve to a full-spectrum force 
critical to our overall military readiness. Recent combat deployments, 
as well as peacekeeping, humanitarian relief and homeland defense 
missions, have resulted in our Reserve component being far more 
operationally capable and experienced than before. We have yet to 
determine the final steady-state balance between the Active and Reserve 
component, in part because of continuing budget uncertainty. But going 
forward, the Reserve component will be an essential part of the total 
force.
    Question. What additional military personnel reductions do you 
envision if the sequester continues into 2014 and beyond?
    Answer. Because military personnel cannot be reduced quickly, a 
continuation of sequester funding levels would require DOD to take 
disproportionate cuts from the modernization and readiness portions of 
the fiscal year 2014 budget. To ensure these accounts do not bear an 
excessive portion of budget reductions, DOD would seek to significantly 
draw down the size of the military after fiscal year 2014.
    Question. In your view, what tools do DOD and the Services need to 
get down to authorized strengths in the future, and which of these 
require congressional authorization?
    Answer. In my view, DOD's existing force management tools provide 
the necessary flexibility to enable the Services to get down to 
authorized end strength. At this time, the Services are not requesting 
additional force management tools.
                          religious guidelines
    Question. In your view, do policies concerning religious 
accommodation in the military appropriately accommodate the free 
exercise of religion and other beliefs, including individual 
expressions of belief, without impinging on those who have different 
beliefs, including no religious belief?
    Answer. Yes. Our official policy states, ``DOD places a high value 
on the rights of members of the Military Services to observe the tenets 
of their respective religions or to observe no religion at all.'' (DODI 
1300.17, ``Accommodation of Religious Practices Within the Military 
Services''). By both policy and practice, commanders are committed to 
ensuring members of the Joint Force of deep religious faith, as well as 
those of no religious faith, can serve in a climate of mutual respect 
and trust.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact unit cohesion and 
good order and discipline?
    Answer. Yes. Commanders consider requests for accommodation of 
individual expressions of belief, to include apparel, grooming and 
worship practices. Requests are given equal consideration as long as 
they do not negatively impact mission accomplishment, military 
readiness, unit cohesion, good order, discipline, or any other military 
requirement.
             prevention of and response to sexual assaults
    Question. In 2012, for the fourth year in a row, there were more 
than 3,000 reported cases of sexual assault in the military, including 
2558 unrestricted reports, and an additional 816 restricted reports 
(restricted, meaning that, in accordance with the victim's request, 
they were handled in a confidential manner and not investigated). 
Moreover, a recent survey conducted by DOD indicates that the actual 
number of sexual offenses could be considerably higher, as 6.1 percent 
of active duty women and 1.2 percent of active duty men surveyed 
reported having experienced an incident of unwanted sexual contact in 
the previous 12 months.
    What is your assessment of the current DOD sexual assault 
prevention and response program?
    Answer. We have taken swift, deliberate action to change a military 
culture that had become too complacent of discrimination, harassment, 
and assault. The Secretary and I, along with the Joint Chiefs, remain 
personally committed to eradicating sexual assault within our ranks and 
to improving processes and programs as part of our comprehensive 
approach. The Services have achieved significant progress in many 
areas. They have added specialized training for investigation and 
litigation, provided broader access to victim's advocates and Special 
Victim's Counsel, and hired Highly Qualified Experts to evaluate our 
progress. We are focused on taking care of victims, preventing the 
conditions that make assault possible, and enforcing respectful unit 
environments.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. Our primary concern remains the safety and well-being of 
the victim. We are taking swift and deliberate action to reinforce a 
professional work environment, prevent and respond to predatory and 
precursor behaviors, and better protect victims. Should a sexual 
assault occur, we prefer the victim come forward with an unrestricted 
report, to allow for thorough investigation and litigation. However, 
confidential reporting, or restricted reporting, allows a victim to 
access services to meet their personal needs without the additional 
anxiety of a criminal investigation. Moving initial disposition 
authority to O-6 commanders or higher has increased unrestricted 
reporting, and access to Special Victim's Counsel has increased 
victims' willingness to change a restricted report to an unrestricted 
report. However, both restricted and unrestricted reporting options 
remain essential to our response to sexual assault.
    Question. What is your understanding of the adequacy of DOD 
oversight of military service implementation of DOD and Service 
policies for the prevention of and response to sexual assaults?
    Answer. The Sexual Assault Prevention and Response Office (SAPRO) 
oversees the Department's sexual assault policy and works with the 
Services' offices to execute the Services' sexual assault prevention 
and response plans. SAPRO also works with the civilian community to 
develop and implement innovative prevention and response approaches to 
the programs. They continue to lead on this issue by informing and 
advising commanders at all levels. Despite their best efforts, we have 
not yet turned the tide on this crime in our ranks. Therefore, I will 
continue to support initiatives for strengthening oversight and 
accountability.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults have 
occurred?
    Answer. The commander is central to our ability to effect 
institutional change. We must hold commanders accountable at every 
level for reinforcing the highest standards of respect and trust that 
all of our men and women in uniform--and the American people--deserve. 
The sexual assault crisis in the military is a result, in large part, 
of a climate that had become too complacent. We have already refined 
our assessments of command climate by updating the surveys that 
specifically enable servicemembers to evaluate their commanders on unit 
climate and sexual assault response. Additionally, we have moved 
initial disposition authority for incidents of sexual assault to the O-
6 commanders or higher. We will not let up in our efforts to drive the 
crime of sexual violence from our ranks.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. The commander's role in the military justice process is 
longstanding and essential to the effectiveness of our Joint Force. Our 
commanders are responsible for the efficiency of their units first, but 
more broadly, it is in their hands that the defense of the Nation 
rests. Because of the tremendous responsibility placed in commanders, 
they must also have broad authority to enforce discipline and execute 
their duties. This is a foundational element of the military justice 
system. The central imperative in commanders' responsibility to 
accomplish their assigned missions, in peacetime and in war, is the 
good order and discipline of the men and women they lead. Commanders 
regularly consult with their judge advocates, including when deciding 
whether to prosecute alleged offenses. Removing commanders from the 
military justice process in this way would send the message that there 
is a lack of faith in the officer corps and that commanders cannot be 
trusted to mete out discipline. Such a message would surely undermine 
good order and discipline. Absolving commanders of their role in the 
military justice system would potentially undermine the military's 
ability to adequately address this issue. Commanders must be held 
accountable for maintaining a climate that does not tolerate sexual 
assault. Responsibility and accountability go hand-in-hand: in order to 
hold commanders accountable for the good order and discipline of their 
units, they must hold that responsibility and be empowered by the 
system. Disempowering commanders will not help the military tackle this 
problem.
    Question. Article 60 of the Uniform Code of Military Justice (UCMJ) 
requires the convening authority to take action on the sentence issued 
by a court-martial and authorizes a convening authority, in his sole 
discretion, to take action of the findings of a court-martial, 
including setting aside a finding of guilty or changing a finding of 
guilty to a finding of guilty of a lessor included offense.
    What is your view about the authority of a convening authority to 
set aside or modify findings of guilt and authority to reduce a 
sentence imposed by court-martial?
    Answer. Article 60 of the UCMJ currently grants broad authority and 
discretion to convening authorities to dismiss findings of guilt after 
trial. That authority, which dates back well over 200 years, was 
necessary when the military justice system lacked many of the 
procedural safeguards inherent in the system today. In the past, the 
military justice system lacked attorneys serving as trial and defense 
counsel, independent trial judges, and an appellate process. Article 60 
was necessary so that commanders, with the advice of their staff judge 
advocates, could ensure the proceedings, and in particular the 
findings, were fair and just. Many changes to the military justice 
system, which began with the Military Justice Improvement Act of 1968, 
now provide the necessary due process and safeguards. Licensed military 
attorneys now serve as prosecutors and defense counsel, independent 
military judges preside over courts-martial, and convicted 
servicemembers are entitled to a robust appellate process. Due to these 
changes, there is little or no need for a convening authority to 
dismiss the findings after a panel (jury) has found the accused guilty. 
A convening authority should have the discretion, however, to dismiss 
minor offenses under appropriate circumstances, such as to prevent an 
accused from the burden of a felony conviction when found guilty of 
minor misconduct but acquitted of major offenses. Examples of such 
minor misconduct include underage drinking and brief absences without 
leave, which on their own would not normally be adjudicated by courts-
marital. Rather, a convening authority should have the flexibility to 
adjudicate such offenses in an alternate fashion. Convening authorities 
should also retain the ability to modify sentences, which is an 
essential component of our plea bargain process.
             assignment policies for women in the military
    Question. The Department, in January, rescinded the policy 
restricting the assignment of women to certain units which have the 
primary mission of engaging in direct ground combat operations, and has 
given the Military Services until January 1, 2016, to open all 
positions currently closed to women, or to request an exception to 
policy to keep a position closed beyond that date, an exception that 
must be approved by the Chairman of the Joint Chiefs of Staff and the 
Secretary of Defense. The Services are working now to develop gender-
free physical and mental standards for all military occupations, 
presumably with the goal of allowing individuals, regardless of gender, 
to serve in those positions if they can meet those standards.
    If confirmed, what role will you play in the development of these 
standards?
    Answer. Women continue to serve with distinction throughout the 
Armed Forces, and the successful integration of women into currently 
closed positions requires thoughtful planning and deliberate action as 
we proceed. I am working with the Services to provide quarterly reports 
to the Secretary of Defense on the progress of requirements review and 
validation, the timeline for opening closed occupations, limiting 
factors to executing implementation, positions being considered for an 
exception to policy, and an assessment of newly integrated positions. 
All our standards should be reviewed to make sure they are essential to 
the occupation and task. Full implementation should occur by January 1, 
2014. Ultimately, we're acting to strengthen the Joint Force.
    Question. Will you ensure that the standards will be realistic and 
will preserve, or enhance, military readiness and mission capability?
    Answer. The Service Chiefs and I identified guiding principles to 
better align our policies with the experiences we have had over the 
past decade of war. This means setting clear, essential, gender-neutral 
standards of performance for all occupations based on what it actually 
takes to do the job. With the Joint Chiefs, I am closely monitoring 
each of the Services as they develop their implementation plans and 
providing quarterly reports to the Secretary of Defense. Effective 
planning and implementation requires that we appropriately integrate 
women into the organizational culture of certain military occupations.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements?
    Answer. Yes. Performance standards exist to ensure individuals can 
accomplish the tasks required of the mission. Eligibility for training 
and development should consist of qualitative and quantifiable 
standards reflecting the knowledge, skills, and abilities necessary for 
each occupation as required by Public Law 103-160, section 543 (1993).
    Question. If so, what steps will you take, if confirmed, to ensure 
that such decisions are made on this basis?
    Answer. I will continue to work with the Joint Chiefs to ensure 
changes are carefully reviewed and implemented so our service women are 
set up for long-term success with viable career paths. This deliberate 
process will anticipate second- and third-order effects while guarding 
against unintended consequences. Our force deserves our full faith and 
commitment that we get this right.
    Question. Some family members have expressed concerns about 
assigning women to what are currently male-only combat units.
    To what extent do you believe that this will be a problem in the 
implementation of this policy?
    Answer. I think families recognize the bravery and sacrifice of 
women in combat, especially over the past decade of war. The successful 
integration of women into currently closed positions requires we be 
thoughtful and deliberate in planning. One of my guiding principles is 
to also ensure a sufficient cadre of midgrade and senior female 
enlisted and officers are assigned to commands, to become established 
members of the command and to act as mentors to younger women as they 
integrate into the unit. These mentors will help establish a climate of 
trust and support.
    Question. If it is a problem, what steps would you take if 
confirmed to address it?
    Answer. I will continue to hold the Services accountable to open 
all specialties, as the Secretary of Defense and I must personally 
approve any request for exceptions to policy. If members of our 
military can meet the qualifications for a job, then they should have 
the right to serve, regardless of creed, color, gender or sexual 
orientation.
                      rising costs of medical care
    Question. In testimony presented to Congress in February 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April 2009, then Secretary of Defense Gates told an audience at 
Maxwell Air Force Base that ``health care is eating the Department 
alive.'' In recent years, the Department has attempted to address the 
growth in overall health care costs by identifying efficiencies as well 
as by proposing increased cost shares for military retirees.
    What reforms in infrastructure, benefits, or benefit management, if 
any, do you think should be examined in order to control the costs of 
military health care?
    Answer. Quality health care is a critical component to having a fit 
and ready force. We are examining fiscal year 2014 options to slow the 
growth of health care costs while preserving the quality and enhancing 
the range of health care services available to the Military Family. 
Reform to control costs is essential to making healthcare more 
sustainable. If confirmed, I will continue to assist the Secretary of 
Defense in this comprehensive review of benefit payment structures, 
organizational structure, systems, and policies to improve 
affordability.
    Question. What is your assessment of the long-term impact of rising 
medical costs on future DOD plans?
    Answer. Health care costs consume 10 percent of the department's 
budget. In real terms, costs have tripled since 2001 and are forecasted 
to nearly double again by 2030. Increasing health care costs will 
inhibit future force readiness as competing requirements confront a 
decreasing top line. Health care is key to retaining high quality 
servicemembers and to keeping faith with our entire military family. I 
will continue to work closely with DOD leadership and Congress to find 
reasonable and responsible ways to slow this growth.
    Question. If confirmed, what actions would you initiate or 
recommend to mitigate the effect of such costs on the DOD top-line?
    Answer. Over the last several budget cycles, Congress has permitted 
small, necessary increases in the TRICARE Prime enrollment fees. These 
adjustments were an important step to managing costs, but they are not 
enough to sustain the benefit in the long term. Given today's budget 
environment, we must find a mutually acceptable compromise to reduce 
health costs while still maintaining the quality of care our force and 
our veterans deserve. If confirmed, I will continue to work closely 
with the Secretary of Defense and this Congress to do so.
                systems and support for wounded warriors
    Question. Servicemembers who are or have been wounded and injured 
in combat operations deserve the highest priority from their Service 
for support services, healing and recuperation, rehabilitation, 
evaluation for return to duty, successful transition from active duty 
when appropriate, and continuing support beyond retirement or 
discharge. Yet, as the revelations at Walter Reed Army Medical Center 
(WRAMC) in 2007 illustrated, the Services were not prepared to meet the 
needs of significant numbers of returning wounded servicemembers. 
Despite the enactment of legislation and continuing emphasis, many 
challenges remain, including a growing population of servicemembers 
awaiting disability evaluation.
    What is your assessment of the progress made to date by DOD, the 
Department of Veterans Affairs (VA), and the Services to improve the 
care, management, and transition of seriously ill and injured 
servicemembers and their families?
    Answer. We have made substantial progress in medical care over the 
last 12 years of war. From first responder care to joint battlefield 
surgical care, from the Air Force's enroute care to advanced 
rehabilitation provided by the Department of Veterans Affairs, the 
medical advances we've made are, quite literally, lifesaving and world 
changing. In other arenas, particularly those surrounding family and 
transition, we have been slower to make progress. We are structured to 
fight and win wars, but are not as well prepared to manage a large 
population of transitioning servicemembers. We are making progress 
within the boundaries of law, but I am committed to improving our 
efforts and results.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. We can make further progress by leveraging the 
collaboration on research and treatment between the private medical 
research and healthcare sectors and our Centers of Excellence. These 
partnerships have made significant strides in the care of our Wounded 
Warriors and on the health of our Total Force. We have successfully 
returned many of our Wounded Warriors to service. We have also 
established robust, day-to-day collaboration with the Department of 
Veterans Affairs. It is not uncommon for VA providers to speak directly 
to battlefield providers, and such end-to-end feedback directly 
benefits veterans' care. We also have uniformed servicemembers working 
in VA facilities and VA benefits personnel working in our medical 
facilities, to better serve the large population of servicemembers 
transitioning to civilian life.
    Question. What are the weaknesses that need to be corrected?
    Answer. Individual case management needs further improvement. This 
involves a servicemember transitioning from the Active Force to DOD 
retiree or eligible veteran status. The key components of this process 
remain the implementation of a single electronic health record, which 
follows the servicemember through transition, and a single tracking 
tool for case management. Our ability to communicate across our 
individual bureaucracies continues to be an area requiring our full 
attention and effort.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. As the conflict in Afghanistan winds down, I recognize the 
importance of preserving the knowledge, skills, and advances made in 
caring for our wounded servicemembers over the past decade. Last month, 
I asked the Defense Health Board to make a high priority the ability to 
sustain current practices and continuing advancements in treatment and 
rehabilitation for our seriously wounded servicemembers and their 
families.
    Question. Studies conducted as a result of the revelations at WRAMC 
pointed to the need to reform the disability evaluation system (DES). 
The Integrated Disability Evaluation System (IDES) was established to 
integrate DOD and Department of Veterans Affairs disability systems to 
improve and expedite processing of servicemembers through the 
disability evaluation system.
    What is your assessment of the need to further streamline and 
improve the DES?
    Answer. In addition to the changes we have already made, Senator 
Dole's and Secretary Shalala's commission recommended further statutory 
changes to limit DOD to the ``ability'' business and of the VA to the 
``disability'' business in keeping with each department's core 
competencies. I support their commission's recommendations. Barring 
legislative change to establish a single system, we have gone about as 
far and as fast as we can with separate processes and systems.
    Question. If confirmed, how will you address any need for change?
    Answer. I will continue to do my very best to expedite transition 
and disability processing within the bounds of law and my authorities. 
I will advocate for governance process improvements and other system 
upgrade to streamline and simplify the process.
             suicide prevention and mental health resources
    Question. The numbers of suicides in each of the Services continues 
to concern the Committee.
    In your view, what role should the Joint Chiefs of Staff play in 
shaping policies to help prevent suicides both in garrison and in 
theater and to increase the resiliency of all servicemembers and their 
families, including members of the Reserve components?
    Answer. The Joint Chiefs have a shared responsibility to address 
military suicides with the same devotion we have shown to protecting 
the lives of our forces in combat. I am working closely with the 
chiefs, our interagency partners, and the White House to increase our 
understanding of the factors leading to suicide and how to best 
leverage care networks to keep our servicemembers and veterans alive.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to the servicemembers and their families upon return to 
home station?
    Answer. If confirmed, I will continue to champion the fielding of 
effective treatments for mental health issues, traumatic brain injury, 
and combat stress. This includes the robust system of behavioral health 
care resources that are already available in the Afghanistan Theater of 
Operations. I will also continue my support of the Services to reduce 
the stigma and remove barriers to seeking mental health services for 
both servicemembers and their family members. This effort must include 
steps to ensure subordinate commands praise help-seeking behavior and 
promote reaching out by providing examples of servicemembers who have 
benefitted from mental health assistance or counseling.
                        military quality of life
    Question. The committee is concerned about the sustainment of key 
quality of life programs for military families, such as family support, 
child care, education, employment support, health care, and morale, 
welfare and recreation services, especially as DOD faces budget 
challenges.
    If confirmed, what further enhancements, if any, to military 
quality of life programs would you consider a priority in an era of 
intense downward pressure on budgets, and how do you envision working 
with the Services, combatant commanders, family advocacy groups, and 
Congress to achieve them?
    Answer. The entire enterprise is under scrutiny, and we are seeking 
a way to balance the needs of providing security to the Nation and 
ensure the long-term viability of the All-Volunteer Force. Part of our 
evaluation has focused on providing a quality of life for 
servicemembers and their families that fosters successful recruitment, 
retention, and career progression. We are also looking to modernize and 
achieve fiscal sustainability for the compensation and retirement 
systems. The mental health of our servicemembers is also a priority. We 
will work to ensure that the downward pressure of budgets does not 
adversely impact this vital area. I have my Joint Staff positioned on 
working groups, task forces and other venues to work together with the 
Services and other concerned parties to ensure we keep faith with our 
military family in these areas.
                      family readiness and support
    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families?
    Answer. According to recent Family Readiness surveys, military 
families are most concerned about pay and benefits and retirement. DOD 
is fully engaged through the Pay and Retirement Working Group, which 
feeds recommendations to the Military Compensation and Retirement 
Modernization Executive Committee to address these concerns. In my 
judgment, families are also attuned to the need for our compensation 
system to be sustainable.
    Question. If confirmed, how would you ensure that family readiness 
needs are addressed and adequately resourced?
    Answer. If confirmed, I will continue to support the Services as 
they assess military family needs and program effectiveness. 
Unsustainable costs and smaller budgets mean we must examine every 
warrior and family support program to make sure we are getting the best 
return on our investment. We must promote the most effective programs 
across the force and carefully reduce duplicative efforts. This ongoing 
effort includes current studies--via DODEA, DECA, and a number of 
university partnerships--to identify best practices and evaluate the 
value of existing programs. This effort also includes: the 
restructuring of medical facilities [included in the fiscal year 2014 
budget] to make them more efficient, without sacrificing quality or 
continuity of care as well as fee adjustments that exempt disabled 
retirees, survivors of servicemembers who died on active duty, and 
their family members.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and future reductions in end 
strength?
    Answer. As stated above, if confirmed I will continue to work with 
the Services to meet the changing needs of our military families. Part 
of this effort involves working with the White House and the Services 
to support community-based partnerships to improve education, 
employment, and wellness support for current and transitioning members. 
The Services have also adjusted force size and rotation, redoubled 
transition support, and invested in world-class health care for our 
wounded. This includes the fielding of effective treatments for mental 
health issues, traumatic brain injury, and combat stress. It also 
entails the push to reduce the stigma and remove barriers to seeking 
mental health services for both servicemembers and their family 
members.
    Question. If confirmed, how would you ensure support is provided to 
Reserve component families related to mobilization, deployment and 
family readiness, as well as to active duty families who do not reside 
near a military installation?
    Answer. We have a duty to ensure every family has access to quality 
resources, regardless of component or location. If confirmed, I will 
continue to support the Services' effort to leverage public-private 
partnerships within the communities. We will also continue to leverage 
the State Joint Force Headquarters of the National Guard to help 
members access child care, mental health services, employment 
opportunities and many other services that bolster family readiness.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. In my 2012 Strategic Direction to the Joint Force, I 
identified ``Keeping Faith with our Military Family'' as one of my four 
focus areas during my tenure as Chairman. Keeping faith with our 
military family recognizes the military family's extraordinary 
contributions, preserves trust, and supports them in the ways they need 
most. If confirmed, I will continue this focus with the Services. 
Today, we are actively involved in Family Support Working Groups, 
Resource Management Decision Working Groups and other venues to ensure 
program effectiveness, share best practices, and reduce duplication of 
efforts. America's citizens have also stepped forward. From the local 
to the national level, thousands of organizations, higher learning 
institutions, and businesses have partnered to support our Military 
Family.
                      operational energy budgeting
    Question. Since Congress created the Office of the Assistant 
Secretary of Defense for Operational Energy Plans and Programs, much 
progress has been made in a few short years in these programs.
    In what specific areas, if any, do you believe the Department needs 
to improve the incorporation of energy considerations into the 
strategic planning and force development processes?
    Answer. We have a comprehensive Department strategy which addresses 
energy challenges and leverages opportunities for the current and 
future force. For all new weapon systems, there is now an Energy Key 
Performance Parameter that must be considered during the system 
requirements process. Operationally, we are making strides to improve 
electrical generation efficiency in Afghanistan through the use of 
micro-grids, reducing the individual soldier battery requirements 
through solar power technology, and testing advanced renewable energy 
technologies in the battlefield environments. We have made much 
progress and will continue to focus on incorporating energy 
considerations in wargames and joint exercises in order to improve our 
strategic planning and force development.
    Question. In what specific areas, if any, do you believe the 
Department should increase funding for operational energy requirements, 
energy efficiency, alternative energy, and renewable energy 
opportunities?
    Answer. Each Service has invested significant resources to address 
operational energy requirements. My primary emphasis remains on 
reducing operational energy dependence to provide increased operational 
flexibility, combat effectiveness, force protection, and mobility 
options for Joint Commanders. I am focused on fully understanding the 
energy requirements of our Joint Force and will continue to support the 
Service initiatives to reduce our energy demands across the force.
                       law of the sea convention
    Question. You have previously expressed your support for U.S. 
accession to the United Nations Convention on the Law of the Sea.
    Do you still believe that the United States should join the Law of 
the Sea Convention (LOSC), and, if so, why?
    Answer. Yes, I testified in support of the United States becoming a 
party to the LOSC before the Senate Foreign Relations Committee in May 
2012. Being a party to LOSC enhances the United States' security 
posture by reinforcing freedom of navigation and over flight rights 
vital to ensuring our global force posture and demonstrating our 
commitment to the rule of law. It strengthens our credibility and 
brings the full force of our influence in challenging excessive 
maritime claims.
                       detainee treatment policy
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. I continue to share the view that the way in which we treat 
detainees may have a direct impact on the manner in which U.S. forces 
are treated should they be captured in future conflicts.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Chairman of the Joint Chiefs 
of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kay R. Hagan
                        army camouflage program
    1. Senator Hagan. General Dempsey, I understand the Army has 
conducted an extensive development program for the next-generation of 
camouflage patterns for combat uniforms. I commend the Army for working 
to ensure our warfighters have the best possible signature management 
and concealment in their combat ensembles. My understanding is that a 
decision has been made on the family of patterns that will be issued to 
Army soldiers but that the announcement has been delayed.
    As we remain deployed in Afghanistan, I am concerned that this 
delay is preventing our soldiers from having the best camouflage 
possible. I am further concerned as this delay is having a severe 
impact on what is left of the industrial base in the United States that 
manufactures the textiles and uniforms that support the armed services. 
Orders for the current Army camouflage pattern have slowed 
dramatically, as procurement officers have slowed purchasing so as to 
not have inventory of a soon-to-be obsolete pattern. This is causing 
layoffs and possible plant closings across the United States. What is 
the status of the Army camouflage program and when do they plan on 
making the announcement?
    General Dempsey. Soldiers in Afghanistan are not at risk of harm 
associated with the current camouflage pattern. Deployed forces are 
provided the Operation Enduring Freedom Camouflage Pattern (OCP) 
uniform, with matching individual equipment. The OCP is the optimal 
camouflage solution for that operating environment and has proven 
effective in providing our soldiers with the necessary concealment 
capability.
    The Army is nearing completion for the scientifically-based 
camouflage study, which constituted the most extensive uniform 
camouflage study ever undertaken with extensive soldier involvement. No 
final decision has been made regarding any camouflage pattern or the 
Army's timeline for introducing a future pattern uniform.
    We recognize and are sensitive to the issues facing industry while 
this decision is pending. In anticipation of a potential pattern 
change, the Army has taken fiscally prudent steps to avoid building 
large inventories of uniforms and Organizational Clothing and 
Individual Equipment in the current Universal Camouflage Pattern (UCP) 
that would otherwise be rendered obsolete and require disposal. The 
Army's objective is to spend wisely, and thereby avoid having a large 
stockpile of items in UCP that may not be used.

                              afghan women
    2. Senator Hagan. General Dempsey, Afghan women have made 
remarkable hard-fought strides since 2001. During my recent trip to 
Afghanistan and through other discussions here in Washington, I 
recently learned that we are beginning to terminate or descope many 
programs that are intended to build Afghan society, specifically 
programs involving women and domestic issues. The targets established 
by the Afghan Government for female recruitment to the Afghan National 
Security Force (ANSF) are 5,000 women in the Afghan National Police 
(ANP) by the end of 2014 and 10 percent of the overall Afghan National 
Army (ANA) force size. While cultural factors have made recruiting and 
retaining Afghan female police officers and army personnel more 
challenging, the effort to expand female participation in the ANSF is 
under-resourced and under-prioritized. Recent hearings have identified 
that there are numerous examples of descoping and cancellation of 
programs to support, recruit, professionalize, and train women in the 
ANSF.
    Please provide your views on how best we can sustain and enhance 
our earlier efforts to recruit, train, and mentor women into the ANSF 
so that these hard-won gains will continue to benefit Afghanistan after 
our drawdown.
    General Dempsey. There is no simple solution to an issue directly 
related to the cultural and social realities of Afghanistan. Current 
measures to ensure the continued recruitment of women for all elements 
of the ANSF must remain in place. Financial incentives and 
international encouragement will be the primary tools to promote the 
recruitment, support, and training of women in the ANSF. I see two 
elements that must be addressed to maintain progress. The first is 
maintaining the standards within the ANSF to ensure it remains a 
positive and respected organization with critical roles for women in 
the Army and Police. The second is sustainment and enhancement of ANSF 
public messaging and efforts to recruit and train women. Eventually, 
this could help to change the cultural acceptance of women serving in 
these roles within Afghan society. In any case, our continued 
involvement in the development of the ANSF is our best chance to 
encourage positive change in this issue over time.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                    sequestration and a hollow force
    3. Senator Inhofe. General Dempsey, in your professional judgment, 
are defense budget cuts currently hollowing out the readiness and 
training of our Armed Forces?
    General Dempsey. Prior to sequestration, the Joint Force faced the 
simultaneous challenge of reconstituting the force and restoring its 
ability to conduct the full spectrum of operations--much broader 
operations than the limited mission conducted in Afghanistan. Now, with 
sequestration, we are prioritizing the readiness of our deployed and 
next to deploy forces at the expense of reconstituting the majority of 
the nondeployed force. While this approach provides ready forces to 
meet current and near-term force requirements, it comes at the expense 
of modernization and future readiness. In broad terms, current defense 
budget constraints are creating a gap between our strategy and the 
means required to accomplish it. The cuts are deep. More challenging, 
they are historically steep. We are in fact hollowing out the readiness 
of the force.

    4. Senator Inhofe. General Dempsey, has the President been made 
aware of this assessment?
    General Dempsey. Yes.

    5. Senator Inhofe. General Dempsey, if sequestration continues into 
2014, will the hollowing out of the armed forces accelerate?
    General Dempsey. I am very concerned about the loss of readiness 
across the Department. This challenge may not accelerate, but it is 
sure to persist.
    The fiscal year 2013 sequestration cuts were not strategy based or 
strategy uniformed. The impact of sequestration and other budget 
constraints are beginning to emerge in unit level readiness reports. 
The longer-term effects caused by the cancellation of large force 
exercises and deferred maintenance are difficult to measure at this 
time but will certainly impose significant strain on long-term 
institutional readiness. The continuation of sequestration into 2014 
will compound these effects since readiness and modernization are 
essentially the only levers available to achieve the magnitude of cuts 
required by the sequestration mechanism. By definition, continuation of 
sequestration will result in a less ready, less modern force. Due to 
the reality that it takes longer to restore readiness than it does to 
lose it, continued sequestration will pose institutional challenges far 
beyond 2014.

    6. Senator Inhofe. General Dempsey, do you currently have a plan to 
reverse this deteriorating trend?
    General Dempsey. One of the overarching priorities of the Strategic 
Choices and Management Review (SCMR) was to look first at savings 
gained from reducing overhead and structural costs (``tail'') in order 
to minimize the impact on the capability and readiness of the force 
(``tooth''). As stated by the Secretary, a top priority in future year 
budget plans is to build a ready force. We have a responsibility to 
defend the country, no matter the size of our budget. The Services and 
defense agencies are now in the midst of determining the shape, size, 
and readiness of a military operating with severely reduced long-term 
funding.
    A plan to ``reverse'' deterioration would depend on how long the 
sequestration mechanism remains in effect, how small we make the force, 
and how much savings we can harvest from institutional reform.

    7. Senator Inhofe. General Dempsey, what has the Secretary's 
Strategic Choices review found with respect to risk for our military 
under sequestration? In other words, under sequestration, what can't we 
do that we must do?
    General Dempsey. The SCMR showed that we will not be able to 
implement immediate significant cuts strategically. If significant and 
abrupt cuts are directed, we will risk fielding an unprepared force.
    We are looking for ways to make these immediate cuts in the least 
damaging way, but because up to half of the Department's budget is 
placed off limits from savings--for example, we cannot generate quick 
savings from cutting personnel and infrastructure--the only way to 
implement an abrupt 10 percent reduction is to impose disproportionate 
reductions in training, maintenance, and investment. Readiness, in some 
cases, would continue to decline beyond current degraded levels. We 
would also be forced to make disproportionately large cuts in funding 
for modernization programs, eroding our technological superiority and 
damaging our Better Buying Power initiatives.

    8. Senator Inhofe. General Dempsey, in addition to devastating 
readiness, how will the sequester in fiscal year 2014 impact the 
Department of Defense (DOD) plans in the Pacific? Army and Marine Corps 
end strength? The Joint Strike Fighter? Shipbuilding? Missile Defense? 
Military space programs?
    General Dempsey. Over a longer term, sequester in fiscal year 2014 
through fiscal year 2021 would seriously disrupt our forces and 
programs, requiring that we substantially modify and scale back the new 
defense strategy.
    Continued sequestration would inevitably disrupt DOD's investment 
programs, including the Joint Strike Fighter, Shipbuilding, Missile 
Defense, and Military space programs. Under current mechanical rules 
that govern the sequester process, every one of our more than 2,500 
procurement programs, research projects, and military construction 
projects would be indiscriminately reduced. Some military managers 
would be forced to buy fewer weapons. Reductions in quantities will 
likely cause unit costs of weapons to rise, which will in turn demand 
further cuts in quantities.

    9. Senator Inhofe. General Dempsey, in your advance policy question 
response you said: ``The recent Strategic Choices and Management Review 
affirmed the fundamental soundness of the [January 2012] Defense 
Strategic Guidance,'' but you also said, ``The Department is still in 
the process of determining what revisions might be necessary to align 
ends, ways, and means given the additional $500 billion in cuts,'' and 
`` . . . we are at risk of strategy insolvency if sequestration is 
implemented as currently prescribed by law.'' You seem to be saying 
simultaneously that in the context of sequestration, our current 
strategic guidance works fine, is under revision, and doesn't work. 
Will sequestration require a new defense strategy? Please answer yes or 
no and explain why.
    General Dempsey. Yes. Full sequestration will cause us to relook 
the Defense Strategic Guidance (DSG) in terms of changing objectives 
and timelines. The missions that the military is called to do were re-
affirmed in the SCMR. However, to complete these missions successfully, 
with further reduced means resulting from sequestration, we will need 
to rebalance our ends, ways, and means. For example, there may be 
things that can no longer be done simultaneously due to readiness or 
availability of units at a given time. If we fail to adjust the ends 
and ways with the sequestration cuts that require $50 billion every 
year, the resulting decrease in readiness and modernization could 
render the existing strategy insolvent.

    10. Senator Inhofe. General Dempsey, in your professional opinion, 
should defense strategies continue to be adjusted to meet diminishing 
budgets or should defense budgets be guided by a sound defense strategy 
that meets our national security objectives?
    General Dempsey. We need to have a budget informed strategy, not a 
budget driven strategy. Our budget should be guided by an agreed upon 
strategy that meets our national security objectives. Adjusting our 
ends, ways, and means in order to maintain an acceptable balance is a 
part of any strategy; however, the strategy should not be derived 
solely from the budget.

    11. Senator Inhofe. General Dempsey, in your view, do we have 
adequate and ready forces today to be able to simultaneously carry out 
operational plans for two major contingency operations? If not, how 
does this impact your assessment to commit forces to a major regional 
contingency?
    General Dempsey. It would depend on which two major contingency 
operations, and the nature, size, and scope of the simultaneity and 
desired end states. We regularly conduct ``bundled'' plan assessments 
to determine our ability to meet simultaneous requirements of specific 
operational plans. In certain high priority, resource demanding and 
high consequence scenarios, we are challenged to meet the demands of 
our operational plans with adequate and ready forces. In these 
instances, we review the mitigation options and residual risk resulting 
from delayed timelines and modified objectives to assess the risk to 
forces and successful plan execution.
    My assessment on the feasibility of committing force to 
contingencies is always informed by other global commitments and the 
degree to which our most important national security interests are 
effected.

                            defense strategy
    12. Senator Inhofe. General Dempsey, you talk about strategy in 
terms of balancing ends, ways, and means, and the need to balance 
ambition and means. This sounds eerily similar to the rationalization 
used by European nations to reduce defense spending to the extent that 
defense spending at 2 percent of Gross Domestic Product (GDP) is a 
distant memory and we are looking at an average of our allies that will 
approach 1 percent of GDP. Our defense strategy must address threats to 
national security. Do you agree that sequestration will result in 
unacceptable risk to the military's ability to address national 
security threats creating a situation of strategic insolvency?
    General Dempsey. Sequestration's mechanism and magnitude, 
unmitigated, will increase risk to the military's responsibilities as 
they are currently defined and create unacceptable risk to our national 
security. My sense is that if sequestration continues the Nation will 
have a military that is increasingly unready, steadily losing 
technology overmatch to challengers and unable to maintain global 
presence and posture. It is a military that will be viewed with 
increasing concern by our longtime allies and with increasing 
satisfaction by our potential adversaries. It is a military that will 
offer our civilian leaders fewer options and higher opportunity costs 
when they decide to employ military force. I will provide additional 
specifics related to impacts of sequestration in my next classified 
Chairman's Risk Assessment submitted with PB15.

    13. Senator Inhofe. General Dempsey, if we continually rebalance 
ends, ways, and means due to resource constraints, our military 
strategy becomes resource-driven and not threat-driven, eventually 
resulting in a strategy that only works at the level of unacceptable 
risk. The Quadrennial Defense Review (QDR) is supposed to be threat 
driven by design. Are you committed to a QDR that provides 
recommendations that are not resource-constrained?
    General Dempsey. I am committed to conducting the QDR in a manner 
that focuses on the threats in our current and predicted environment 
during the time horizon covered by the QDR.

    14. Senator Inhofe. General Dempsey, how will you know when the 
risk to our national interests assumed by a reduction in defense 
budgets and a subsequent revised defense strategy becomes unacceptable?
    General Dempsey. Risk to the strategy becomes unacceptable when we 
no longer have trained and ready troops to respond to contingencies 
that threaten our national security interests.

                                 legacy
    15. Senator Inhofe. General Dempsey, in your professional judgment, 
at full sequestration will the elimination of brigades, ships, and 
squadrons incur unacceptable risk to our national security by not 
having enough forces to carry out even one major contingency operation 
with enough reserves to deter a second adversary? For example, does a 
potential looming crisis or conflict with Iran constrain your options 
to take or propose other military actions due to resource limitations?
    General Dempsey. I am concerned that full sequestration is 
significantly impacting military readiness, increasing risks especially 
in the event of multiple contingencies.

    16. Senator Inhofe. General Dempsey, given the current path of the 
readiness of the armed forces, in your professional judgment, when will 
the Commander in Chief be at that point of making immoral decisions?
    General Dempsey. Risk rises significantly when we no longer have 
trained and ready troops to respond to contingencies that threaten our 
national security interests. I am evaluating the impact of full 
sequester on readiness and plan to provide my assessment to Congress 
once complete.

    17. Senator Inhofe. General Dempsey, while I understand that no 
military leader wants to shy away from a battle, whether it be with an 
adversary or otherwise, what would be your course of action if given an 
order to deploy troops into harm's way that are of insufficient 
numbers, degraded capability, or not ready?
    General Dempsey. My military advice would depend on the nature of 
the threat. But let me assure you that if the Nation is threatened, we 
will deploy in its defense. That said, I am very concerned that we will 
have fewer options, that our deterrent effect will be diminished, and 
that military action will result in more casualties if we fail to 
maintain our high state of readiness because of budget uncertainty.

    18. Senator Inhofe. General Dempsey, how will you know when this 
point has come?
    General Dempsey. We are watching for several indicators. Sequester 
increases unready forces, misaligned global posture, reduced security 
cooperation, and decline of the All-Volunteer Force. I am especially 
concerned about the All-Volunteer Force. Today we have the most 
seasoned, professional military force in history. Budget reductions, 
inflexibility, and uncertainty increasingly threaten training, 
readiness, recruiting, and retention.

    19. Senator Inhofe. General Dempsey, each American who is graced 
with the privilege to serve and sacrifice for this great Nation at some 
point becomes keenly aware of the history and legacy that they will 
leave to those that follow. What do you hope will be your legacy as 
Chairman of the Joint Chiefs of Staff and how do we avoid the legacy of 
being in charge during the age of a hollow force?
    General Dempsey. Every military leader--myself included--works 
tirelessly to preserve the culture of service you describe in defense 
of our Nation. During this period of historic transition, I want to set 
the conditions for the force of tomorrow. The fiscal pressures we face 
increasingly challenge our ability to field a future force that is 
balanced and has sufficiently levels of readiness. To achieve this, we 
need the certainty of an approved budget, the flexibility to make 
tradeoffs, and time to absorb budget cuts. The responsibility for 
tomorrow's force rests on the efforts of us all--those in uniform and 
our elected officials.

                     readiness and flying hour cuts
    20. Senator Inhofe. General Dempsey, due to a recently approved 
reprogramming, the Air Force was able to move $208 million into flying 
hour funds. Why couldn't DOD do this before April 9, 2013? Was it due 
to a lack of flexibility in moving funds within the DOD budget?
    General Dempsey. Yes, both the NDAA and fiscal year 2013 enacted 
budgets were 3 and 6 months late respectively, which resulted in a 6 
month Continuing Resolution that limited our flexibility (transfer 
authority) to move money between major budget categories and into 
flying hour funds. The Air Force's limited Operations and Maintenance 
transfer authority of $15 million was insufficient to restore any 
reasonable portion of the $591 million flying hour reduction resulting 
from sequestration in fiscal year 2013. Consequently, the lack of 
flexibility and reduction in Operations & Maintenance funds resulted in 
the Air Force grounding some flying squadrons on April 9, 2013. The 
reprogramming action completed in July gave the Air Force the authority 
to shift $1.6 billion from other appropriations into critical 
Operations & Maintenance funds to minimize the impact on readiness, 
$208 million of which was applied towards the Air Force flying hour 
program.

    21. Senator Inhofe. General Dempsey, I believe DOD was short 
approximately $11 billion in overseas contingency operations (OCO) 
funding and has requested that $9.6 billion be reprogrammed from the 
base budget. If DOD received full funding for overseas contingency 
operations, what impact would that have had on DOD operations and 
readiness as a whole, to include Air Force flying hours?
    General Dempsey. The President's fiscal year 2013 OCO budget fully 
funded wartime operations based on our best estimates 2 years ago. 
However, during execution of the fiscal year 2013 budget in the spring 
of 2013, the Department identified a shortfall of between $7-$10 
billion, conservatively, in OCO funds due to a combination of 
sequestration reductions against both the Base and OCO O&M budgets and 
higher than forecasted wartime operating costs, including fuel, 
retrograde transportation, etc.
    To ensure we could properly conduct wartime operations and to help 
minimize some of the devastating impacts to base budget readiness, the 
Department requested $9.6 billion in reprogramming authority from 
Congress. Because it was unclear how much of the reprogramming action 
would be approved, the Services continued scrutinizing their budget 
activities to find additional resources to address the funding 
shortfall. Ultimately, Congress approved the majority of the requested 
fiscal year 2013 reprogramming actions, allowing the Department to 
appropriately fund wartime operations and mitigate a portion of the 
impacts to readiness in the Air Force Flying Hour Program. Ultimately, 
the curtailed readiness activities will have a cumulative effect in 
fiscal year 2014, which will be amplified with further sequestration.

    22. Senator Inhofe. General Dempsey, how many additional hours will 
have to be dedicated to bring all these units and its aircrews back up 
to mission-ready status?
    General Dempsey. As of today, there are 18 squadrons in the Air 
Force still flying at reduced levels of readiness. An additional 7,000 
flying hours at a cost of $116 million above the PB14 request and 3-6 
months would be necessary to bring these remaining 18 squadrons from 
current (lower than Basic Mission Capable) flying rates back to pre-
sequester mission status (Combat Mission Ready flying rates).
    Prior to sequestration, a substantial number of Air Force squadrons 
were already operating at lower than optimal goals due to previous 
Budget Control Act (BCA) reductions and the effects of long-term high 
operations tempo. On 9 April, a total of 31 squadrons were stood down, 
including 13 combat-coded (fighter, bomber, and AWACS) units and 18 
institutional units (Weapons School, Aggressors, Thunderbirds, etc.). 
Through efficiencies and the $208 million from the DOD reprogramming 
request, the Air Force was able to shift funds and increase the flying 
rates of the 13 combat coded units back to Combat Mission Ready (CMR) 
rates for the remainder of fiscal year 2013. It will take 3-6 months at 
this CMR rate before these squadrons return to pre-sequestration 
mission ready rates. The efficiencies and reprogramming also allowed 
the remaining 18 institutional units to resume flying, albeit lower 
than Basic Mission Capable (BMC) rates.
    The Air Force will continue to have readiness challenges due to the 
BCA and sequestration, beyond the units that were stood down. To bring 
all Air Force flying squadrons back to full mission readiness goals 
needed to meet Defense Strategic Guidance requirements, it would take 
approximately 2 years, an additional $3.2 billion per year in fiscal 
year 2014 and fiscal year 2015, and a reduction in current deployment 
tempo (e.g. deploy-to-dwell at 1:3 or better).

    23. Senator Inhofe. General Dempsey, how much will that cost?
    General Dempsey. As of today, there are 18 squadrons in the Air 
Force still flying at reduced levels of readiness. An additional 7,000 
flying hours at a cost of $116 million above the PB14 request and 3-6 
months would be necessary to bring these remaining 18 squadrons from 
current (lower than Basic Mission Capable) flying rates back to pre-
sequester mission status (Combat Mission Ready flying rates).
    Prior to sequestration, a substantial number of Air Force squadrons 
were already operating at lower than optimal goals due to previous BCA 
reductions and the effects of long-term high operations tempo. On 9 
April, a total of 31 squadrons were stood down, including 13 combat-
coded (fighter, bomber, and AWACS) units and 18 institutional units 
(Weapons School, Aggressors, Thunderbirds, etc.). Through efficiencies 
and the $208 million from the DOD reprogramming request, the Air Force 
was able to shift funds and increase the flying rates of the 13 combat 
coded units back to CMR rates for the remainder of fiscal year 2013. It 
will take 3-6 months at this CMR rate before these squadrons return to 
pre-sequestration mission ready rates. The efficiencies and 
reprogramming also allowed the remaining 18 institutional units to 
resume flying, albeit lower than Basic Mission Capable (BMC) rates.
    The Air Force will continue to have readiness challenges due to the 
BCA and sequestration, beyond the units that were stood down. To bring 
all Air Force flying squadrons back to full mission readiness goals 
needed to meet Defense Strategic Guidance requirements, it would take 
approximately 2 years, an additional $3.2 billion per year in fiscal 
year 2014 and fiscal year 2015, and a reduction in current deployment 
tempo (e.g. deploy-to-dwell at 1:3 or better).

    24. Senator Inhofe. General Dempsey, what happens to these units on 
October 1, 2013, when sequestration hits again?
    General Dempsey. Given the nature of the cuts in fiscal year 2013, 
we had no flexibility in managing squadron readiness. If sequester hits 
in fiscal year 2014, we will be able to rotationally stand-down units, 
or fly them at reduced rates, similar to actions we took in fiscal year 
2013. The net effect of cuts spread over the full fiscal year versus 
just 7 months will lead to readiness levels slightly higher than under 
sequester in fiscal year 2013, but still well below pre-sequester--and 
already sub-optimal--readiness levels. This will significantly erode 
our training and force development efforts, and increase risk in our 
ability to fill OPLAN and the Secretary of Defense ordered missions.

                          iran nuclear weapons
    25. Senator Inhofe. General Dempsey, in your professional military 
opinion, do you think sanctions will prevent Iran from obtaining 
nuclear weapons capability?
    General Dempsey. The United States and its allies have put in place 
against Iran tough, smart, and crippling sanctions. However, sanctions 
alone were not designed to, nor will they, prevent Iran from obtaining 
a nuclear capability. The purpose of these sanctions is to bring Iran 
back to the negotiating table with the P5+1.

    26. Senator Inhofe. General Dempsey, what timeline do you think 
Israel is on for taking kinetic action after Prime Minister Netanyahu's 
remarks this weekend?
    General Dempsey. We do not think Israel has made a decision to 
strike Iran. We fully support Israel's right to self-defense.

    27. Senator Inhofe. General Dempsey, does a potential looming 
crisis or conflict with Iran constrain your options to take military 
action in other parts of the world due to resource limitations? 
Specifically, are you concerned that taking action in Syria, combined 
with readiness and resource impacts due to budget cuts and 
sequestration, invites too much strategic risk if friction with Iran 
results in a conflict in the Gulf as well?
    General Dempsey. The Department maintains a robust military 
presence in the region to deter or counter destabilizing activities, 
reassure allies and partners, and safeguard the region's vital links to 
the international community. We are currently postured to respond to 
contingencies in the Gulf and are watching Syria very closely. Military 
involvement in Syria may impact contingency plans for Iran. The impacts 
depend on the level of military intervention. A small-scale 
intervention along the lines of training and equipping an opposition 
force would likely have little effect on our readiness vis-a-vis Iran. 
However, a larger scale intervention that entails implementing a no fly 
zone, suppressing enemy air defenses, and/or executing punitive strikes 
against regime forces will likely draw from resources that could be 
used in an Iran contingency. So, depending on the nature of the Iranian 
contingency, heavy involvement in Syria could strain our ability to 
sustain our forces simultaneously in the Gulf. Moreover, the risk could 
increase when readiness and resource constraints from the budget cuts 
are entered into the equation.
    In terms of sequestration, a reduction of U.S. force presence in 
the Middle East (due to sequestration) will degrade military options to 
respond to contingencies, place U.S. interests, citizens, and military 
forces at higher risk, and strain relationships with regional partners. 
This in turn, will reinforce Iranian beliefs that U.S. threats of 
military action lack credibility and may strengthen Iranian resolve in 
P5+1 negotiations and embolden Iran to increase activities that 
destabilize the region. These effects go well beyond Iran and will 
decrease DOD options to shape and react to future events as well as 
weaken mil-mil relationships with regional partners, which U.S. foreign 
policy has often leveraged for broader diplomatic gains.

                      military assistance to egypt
    28. Senator Inhofe. General Dempsey, the Egyptian military seems to 
be the primary stabilizing institution in Egypt. What is your position 
on whether or not we should cut off aid to the Egyptian military?
    General Dempsey. The situation in Egypt is rapidly evolving. 
Ultimately, the decision to extend military aid to Egypt rests with the 
President. I believe we must remain engaged with the Egyptian military 
at some level.

    29. Senator Inhofe. General Dempsey, if aid is cut off, should we 
restore it as soon as possible?
    General Dempsey. If the decision is made to terminate or suspend 
aid to the Egyptian military, we should make it clear from the start 
under which it will be restored.

                       military options in syria
    30. Senator Inhofe. General Dempsey, has the President given you 
specific objectives in Syria that your military options should 
support--or has he only asked you for military options?
    General Dempsey. The President has articulated his priorities and 
what he views as our core national interests in Syria. Likewise, the 
NSS has described a set of objectives which were derived from these 
core national interests. In support of these objectives, we have 
developed a range of military options.

    31. Senator Inhofe. General Dempsey, if no U.S. military action is 
taken to alter the balance of military power between Assad and the 
armed opposition, what does the military think the most likely outcomes 
are?
    General Dempsey. The crisis in Syria is tragic, dynamic, and 
complex. It is a deeply-rooted, long-term conflict among multiple 
factions that will continue to fight after Assad's rule ends. The 
Syrian people face a long and difficult struggle. Potential outcomes 
could include the status quo, increased spillover in the Levant that 
compels a regional actor to attempt to alter the balance between the 
Regime and the opposition, or the fracturing of the country into 
sectarian based provinces.

    32. Senator Inhofe. General Dempsey, in your professional military 
opinion, what are the military options that could best accomplish 
changing the balance of military power between the Assad regime and the 
armed opposition without boots-on-the-ground, assuming: (1) vetted 
rebels are provided with light arms and anti-tank weapons and training; 
(2) no kinetic action against Syrian integrated air defense system; (3) 
limited strikes in Syria would be allowed as would flight into Syrian 
airspace; (4) airstrikes would last no more than 2 weeks; (5) 
collateral damage to civilians is to be minimized. Under those 
parameters, assuming legal justifications were in place: (1) what could 
you accomplish in terms of altering the balance of military power; (2) 
what lines of military effort would you recommend; (3) what are the 
risks associated with those lines of effort; and (4) what is the cost 
of your recommended course(s) of action? Please provide an assessment 
of the impact on your ability to handle an Iranian conflict following 
such an action.
    General Dempsey. Within the framework and the constraints and 
objectives articulated above, there are military options available, 
which we have fully briefed to the national security staff.
    At the unclassified level, these options would include strikes with 
standoff weapons on key Syrian Regime infrastructure, logistics nodes, 
and combat forces command and control nodes that could degrade regime 
forces. Striking attack helicopters on their ramps with standoff 
weapons would have an important impact on regime close air support 
capability, though the locations of those helicopters varies. Contrary 
to what some have suggested, although fixed wing tactical aircraft are 
being used by the regime against the opposition, they are not the 
principal firepower element being used to target the opposition. For 
this reason, striking runways, again as some have suggested, is not an 
optimal use of expensive standoff weapons, to say nothing of the fact 
that the regime would rapidly repair runway damage and resume 
operations. While the above strikes would have an effect on the balance 
of military power, they are not likely to be decisive.
    Rather, the regime is primarily targeting the opposition through 
artillery and rocket attacks and ground forces operations. We believe 
that suppressing these attacks would require a campaign that would 
roll-back certain (though not necessarily all) elements of the 
integrated air defense system and subsequently enable a campaign 
against Assad's ground forces. Details of such a campaign would be 
classified, but such a campaign is feasible. Contrary to depictions of 
our prior responses as involving a massive campaign, this would not 
require enormous resources, but would require a moderate number of ISR, 
tactical aviation, and traditional support aircraft such as tankers, 
AWACS and personnel recovery resources, as well as regional bases and 
defenses for those bases. Principal risks to this approach would be: 
(a) the risk of retaliation from Syria against regional partners and 
U.S. bases within those countries; and (b) the risk to U.S. aircraft 
from mobile surface-to-air missile systems.
    To effect a positive and longstanding result, U.S. support should 
contribute to enabling a substantial number of moderate opposition 
fighters over an extended period of time. Such an endeavor to build a 
moderate opposition force capable of defeating regime forces and 
consolidating and holding territory would require at least 2 years. 
This extended large-scale train and equip effort is probably the wisest 
course of action; however, it is not without substantial obstacles. 
Preferably, strikes would be deferred until an opposition force is 
capable of maintaining and exploiting at least some of the gains 
provided by the strikes.
    The two options outlined above could complement one another and 
cause the balance of military power to shift. However, we believe it is 
unrealistic to expect this shift to occur rapidly. Both sides are in an 
existential struggle for survival, and have demonstrated considerable 
resiliency. We are concerned that some consider such a campaign to be 
easy. Once the first 2 weeks pass without a clear solution to the 
conflict, there would most certainly be an appetite for more action. 
Thus, we need to understand that the United States would likely be 
drawn into a protracted conflict, and would need to be prepared for the 
expense and follow-on actions in a post-Assad Syria that would likely 
be demanded.
    Finally, we need to be prepared to fund either or both options. Our 
initial estimate for a train and equip mission is in the hundreds of 
millions dollars per year. The cost of the strikes depends on the 
number of munitions expended, but costs would start in the tens of 
millions and could easily increase to hundreds of millions.
    Regarding Iran, we are currently postured to respond to 
contingencies in the Gulf and we monitor Iranian actions very closely. 
If action against Iran were sequential to action in Syria, we would use 
forces already anticipated for such a conflict. If such action were to 
occur in parallel, some of the forces we would deploy would not be at 
optimal levels of readiness.

 afghanistan post-2014 troop presence and bilateral security agreement
    33. Senator Inhofe. General Dempsey, is the zero option of no U.S. 
troops in Afghanistan after 2014 a real option given the results we 
have seen in Iraq with a similar precipitous withdrawal?
    General Dempsey. We have presented the President with a range of 
options to consider. I have not been asked to prepare a zero option, 
nor do I recommend one. Our post-2014 presence will be predicated on a 
number of things, including the ongoing Bilateral Security Agreement 
(BSA) negotiations, performance of the ANSF, and an invitation from the 
government of the Islamic Republic of Afghanistan. We also developed a 
complementary drawdown plan that would support a range of options, with 
mitigating factors included.

    34. Senator Inhofe. General Dempsey, what mission sets and 
commensurate levels of troops do you recommend for Afghanistan post-
2014?
    General Dempsey. Our post-2014 mission will be to train, advise, 
assist, and counter terrorism. Several factors determine the size of 
the post-2014 mission, including the continued progress of the ANSF and 
the level of train, advice, and assist required to further that 
progress, the outcome of the BSA negotiations, and threat assessments. 
In addition, the North Atlantic Treaty Organization (NATO) is currently 
in the planning stages for post-2014 Resolute Support Mission, of which 
the United States will be the leading troop contributing nation. We 
assess that a range of 8-12K will be required.

    35. Senator Inhofe. General Dempsey, General Dunford says that 
above all, the Afghans need to know the United States is committed to 
an enduring partnership. It would seem that announcing a desired number 
of U.S. troops in Afghanistan post-2014, pending successful BSA 
negotiations, would send a strong message--when will the administration 
announce the desired troop levels for post-2014?
    General Dempsey. The United States has been extremely clear in our 
commitment to the people of Afghanistan post-2014. I have recommended 
that the administration announce U.S. troop levels for post-2014 after 
the conclusion of the BSA and formal invitation by the President of 
Afghanistan to remain.

    36. Senator Inhofe. General Dempsey, after letting the Taliban 
raise the flag and the country name they used when they governed 
Afghanistan on the political office the United States helped arrange in 
Doha, Qatar, the Afghan people and President Karzai were understandably 
upset. Are the chances for a U.S.-led peace process, or reconciliation 
process, dead?
    General Dempsey. While the reconciliation process in Afghanistan 
has thus far been exceedingly complex and challenging, is has not 
stopped moving forward. It remains an important element of fostering 
stability in Afghanistan. We will continue to support our Afghan 
partners in their efforts to meet with the Taliban and reach a 
political settlement that provides peace and security for the people of 
Afghanistan.

    37. Senator Inhofe. General Dempsey, are we forcing this issue and 
doing more harm than good?
    General Dempsey. A reconciliation process inevitably introduces 
additional complexity into internal conflict in any nation, as well as 
uncertainty among the elements making up both sides of the conflict. 
There will be both progress and setbacks along the way in any such 
negotiation process. Afghanistan is no exception. Nonetheless, a 
political solution has been required to end most insurgencies (witness 
the ongoing process in Colombia), and we support reconciliation as a 
part of the end game solution in Afghanistan. The Department of State 
is taking the necessary measured steps to support the peace process. A 
reconciled Afghanistan is in the best interest of all parties involved. 
President Karzai acknowledges this, and continues to encourage the 
peace process, albeit on his terms.

                          u.s. africa command
    38. Senator Inhofe. General Dempsey, what is your threat assessment 
of U.S. Africa Command's (AFRICOM) area of responsibility (AOR)--is the 
threat growing, stabilized, or receding?
    General Dempsey. [Deleted.]

    39. Senator Inhofe. General Dempsey, do you believe we have the 
forces in place in U.S. European Command (EUCOM) and AFRICOM to be able 
to both remain engaged in Africa and respond, if necessary, to threats 
as they evolve?
    General Dempsey. DOD is prepared to respond to threats and crises 
as they arise while remaining engaged in AFRICOM and EUCOM.
    AFRICOM forces remain engaged in priority missions such as 
countering violent extremist organizations and partnership building 
within Africa, in accordance with the President's priorities for the 
continent. Meanwhile, we have taken a number of steps to be better 
prepared for crisis operations, particularly in Northern Africa. For 
example, the Marine Corps has resourced additional Marine Security 
Guard (MSG) Detachments to meet regional threats and address Department 
of State security concerns. While relieving an embassy under attack is 
highly complex, we also maintain Marine FAST platoons and other forces 
in the region to be able to rapidly reinforce an embassy in advance of 
a problem. Among these forces is a dedicated Special Marine Air Ground 
Task Force-Crisis Response (SPMAGTF-CR) in Spain capable of quickly 
responding to a variety of threats in Africa or Europe.
    DOD has also developed and adopted rules that will allow force 
sharing between combatant commands (COCOMs) for brief durations to 
ensure rapid response in the event of a crisis. DOD and the Department 
of State work together to ensure that high risk facilities are properly 
secured with DOD support, as required. Finally, DOD monitors specified 
crisis response forces throughout the world and makes adjustments to 
position and posture forces based on threat requirements.

    40. Senator Inhofe. General Dempsey, do you believe we have 
dedicated enough intelligence assets to the continent of Africa?
    General Dempsey. [Deleted.]

    41. Senator Inhofe. General Dempsey, what is you assessment of 
combining AFRICOM with EUCOM?
    General Dempsey. Assigning combatant commands under the current 
structure has led to productive engagement, planning, and operations in 
the respective areas of responsibility. However, depending on the 
magnitude of budget cuts to DOD, we may need to consider combatant 
command consolidations among a number of other difficult staff 
consolidation and reduction decisions. Combining AFRICOM and EUCOM 
would be one of several options we would consider.

                           civilian furloughs
    42. Senator Inhofe. General Dempsey, what can DOD do to end 
civilian furloughs now?
    General Dempsey. The Secretary of Defense instructed all components 
to monitor funding closely for the remainder of fiscal year 2013. On 6 
August, the Secretary announced that this goal was accomplished, and 
reduced the total furlough days for most civilians from 11 to 6 days. 
None of us want to see this occur again in 2014, but the sequestration 
reductions will be more severe next year than this year.

    43. Senator Inhofe. General Dempsey, will DOD use civilian 
furloughs next year to cut personnel costs?
    General Dempsey. The $37 billion in fiscal year 2013 budget cuts 
mandated by sequestration, combined with short timelines that limited 
our options, were a major cause of these furloughs. We would hope to 
avoid furloughs in the future because of their deleterious effects on 
morale and their potential to cause our best civilians to seek 
employment elsewhere. However, a $52 billion sequestration top line cut 
in fiscal year 2014 would perpetuate our readiness shortfalls, likely 
requiring additional civilian personnel actions. These actions could 
include furloughs, but we believe under a longer-term view would more 
likely be weighted towards reductions in civilian billets leading to a 
reduction-in-force action.

    44. Senator Inhofe. General Dempsey, how long will it take before 
you realize this is a penny-wise pound-foolish approach to cost 
savings?
    General Dempsey. We already realize the drawbacks of civilian 
furloughs--they are as distasteful to us as any other budget reduction 
mechanism. However, in fiscal year 2013, sequestration was applied by 
congress on a short timeline, limiting our options and resulting in 
drastic measures like readiness stand-downs and furloughs that were not 
strategically or managerially sound. To avoid even more far reaching 
effects on training, we furloughed most of our civilian employees for 
up to 6 days. This impacted morale and productivity in most of our 
support operations, but we were left with no other alternative in 
finding $37 billion in savings in such a short period of time.
    Going forward, the SCMR has defined the decision-space faced by the 
Department's senior leadership. This, in turn, will inform the Services 
and defense agencies in developing their fiscal year 2015-2019 budgets 
later this year, as well as ultimately inform the Department's next QDR 
early next year.

                             sexual assault
    45. Senator Inhofe. General Dempsey, at the hearing on June 4, 
2013, concerning sexual assault, you committed to review what our 
allies have done to structure their military justice systems. Have you 
had an opportunity to review the military justice systems of our 
allies?
    General Dempsey. My legal counsel has personally met with 
representatives from the UK, Canada, Australia, New Zealand, Germany, 
and the Netherlands to discuss their military justice systems. He has 
briefed me and issued a written assessment of his review to Congress. 
In addition, I have spoken to several of my counterparts.

    46. Senator Inhofe. General Dempsey, what have you learned about 
those systems and why they were changed?
    General Dempsey. In most or all of their systems, commanders retain 
the ability to deal with minor military infractions through summary 
proceedings, analogous to our nonjudicial punishment system or adverse 
administrative actions.

        <bullet> None of our allies mentioned above retain the 
        commander in the role of the convening authority; however, this 
        was not done in response to sexual assault. Most or all of 
        their systems were changed in order to better protect the 
        rights of the accused, often in response to judicial 
        challenges.
        <bullet> There is no analytic evidence to suggest that the 
        changes they made improved reporting, investigation, or 
        prosecution.
        <bullet> Our allies' militaries are much smaller, and thus do 
        not handle the volume of military justice cases that the U.S. 
        Armed Forces do. Many of their systems do not allow for 
        expeditionary justice (in combat or deployed environments) or 
        are incapable of doing so.

 impact of senate appropriations committee funding reduction for b-61 
                                  bomb
    47. Senator Inhofe. General Dempsey, what are the military and geo-
political implications of the Senate Appropriations Committee's 
recommendation to reduce funding for the B-61 Life Extension Program 
(LEP) by $168 million?
    General Dempsey. A $168 million reduction to the B-61 LEP would 
slip the delivery of the first production unit past fiscal year 2019 
and impact our commitment to our NATO and Asian allies. Additionally, 
the Commander of U.S. Strategic Command stated that the program is 
important to the long-term viability of the B-2A strategic mission and 
is needed regardless of changes to NATO commitments.
    This reduction would also limit the DOD and Department of Energy 
from leveraging interoperable technology for other strategic weapons. 
We would need to adjust the budget and scope for those programs, 
resulting in delays to the overall Nuclear Weapons Council Baseline 
Plan.

                          religious expression
    48. Senator Inhofe. General Dempsey, have the Armed Forces gone too 
far in suppressing religious expression?
    General Dempsey. No. DOD continues to place a high value on the 
rights of all military servicemembers to practice their faith and 
observe the tenets of their respective religions, to include the right 
to hold no religious beliefs. Whenever possible, commanders approve 
requests for accommodation of servicemembers' religious practices. This 
is both our policy and our practice.

    49. Senator Inhofe. General Dempsey, if a soldier's religious faith 
is an important part of their resilience in dealing with the stresses 
of military service, is there any reason why they should be prohibited 
from fully exercising that faith and sharing it with others in the 
Services?
    General Dempsey. We recognize that the spiritual dimension and 
religious faith do indeed play an important role in building and 
enhancing resilience for a number of our servicemembers. Commanders are 
conscientious about allowing them to practice their faith. We also know 
that some of our servicemembers do not hold to any particular religious 
belief, and we respect their rights as well. The only reason why a 
servicemember may be unable to fully exercise his or her faith or to 
share that faith with others is if doing so would have an adverse 
impact on mission accomplishment, military readiness, unit cohesion, 
standards, or good order and discipline. Servicemembers are free to 
share their faith with others, but must not force unwanted, intrusive 
attempts to convert others of any faith or no faith to one's beliefs.

    50. Senator Inhofe. General Dempsey, since the Services still 
respect the rights of Americans to not bear arms in national defense 
because of sincerely held religious beliefs, is it not just as 
important to respect the rights of those to serve to express their 
religious beliefs?
    General Dempsey. Yes. DOD does respect the rights of all 
servicemembers to hold and express sincere religious beliefs. Granting 
conscientious objector status, to which your question appears to refer, 
is but one example of how seriously U.S. military leadership takes the 
rights of its members to hold and express sincere religious, moral, and 
ethical beliefs. By both policy and practice, commanders are committed 
to ensuring members of the U.S. military of deep religious faith, as 
well as those of no religious faith, can serve in a climate of mutual 
respect and trust.

    51. Senator Inhofe. General Dempsey, should a military chaplain be 
allowed to express the views of their faith in performing their 
official duties, even if those views are not shared by all?
    General Dempsey. Yes. U.S. military chaplains are not restricted in 
expressing the views of their faith. They enter the military as fully 
qualified religious ministry professionals who represent specific 
religious organizations. Chaplains perform all the offices, functions, 
sacraments, ordinances, and ceremonies required of a ministry 
professional for that religious organization. Chaplains are also 
trained to offer religious ministry to, and be respectful of, those of 
all faiths and those of no faith. Chaplains volunteer for Military 
Service with the understanding that they will be required to function 
in a pluralistic environment. They willingly support the free exercise 
of religion by all members of the Military Services, their family 
members, and other persons whom they are authorized to serve.

                            women in combat
    52. Senator Inhofe. General Dempsey, assuming a person meets the 
necessary high physical standards that the Services are developing for 
troops in frontline combat units, is it your professional military 
opinion that both men and women must be allowed to be assigned to those 
units?
    General Dempsey. The elimination of the 1994 Direct Ground Combat 
Definition and Assignment Rule which provides greater flexibility 
assigning the best qualified individuals where they are needed most 
regardless of gender. Greater flexibility and wider pool of skilled 
personnel creates a more agile and responsive force generation model 
for greater readiness.

    53. Senator Inhofe. General Dempsey, is it your professional 
military opinion that our Nation should put women, based solely on 
meeting objective physical standards, in frontline combat positions 
against a potential enemy that will seek to exploit captured American 
women soldiers in an unspeakably cruel fashion with the goal of 
undermining our national will to engage in combat?
    General Dempsey. As the Services review their standards for each 
military specialty, they are considering several criterion. Physical 
capability is just one of those. Our women in uniform are vital to 
mission readiness. The Department is committed to removing any barriers 
that prevent servicemembers from rising to their highest potential, 
based on their ability and not constrained by gender-restrictive 
policies. This is also in part due to the realization that the 
character of warfare has changed. Combat is far more fluid and 
asymmetrical where the distinctions between frontline, direct combat 
areas and rear, support areas no longer exists. Any decision regarding 
the assignment of women to combat-related duties or to combat units 
should be based on our obligation to maintain a high state of mission 
readiness and should be approached carefully and deliberately.

    54. Senator Inhofe. General Dempsey, is there any place in your 
analysis of the potential role of women in combat, to objectively 
consider women's health, privacy, and cultural issues in the ultimate 
decision whether to assign women to frontline combat units?
    General Dempsey. Yes. The health, privacy and culture of women in 
combat are not new factors in determining how we employ women in the 
military and will be considered during our assessment. Ultimately the 
guiding principles we established at the onset will determine how we 
employ women in the future.

        <bullet> Preserve unit readiness, cohesion, and morale.
        <bullet> Ensure the opportunity to succeed with viable career 
        paths.
        <bullet> Retain the trust and confidence of the American people 
        by promoting policies that maintain the best quality and most 
        qualified people.
        <bullet> Validate occupational performance standards, both 
        physical and mental, for all military occupational specialties.
        <bullet> Ensure a cadre of midgrade/senior women enlisted and 
        officers are assigned to commands at the point of introduction 
        to ensure success in the long run.

                              tricare fees
    55. Senator Inhofe. General Dempsey, prior to sending fee increase 
proposals to Congress, why doesn't DOD sit down with beneficiary 
associations and Congress to design fee increases that are reasonable 
and acceptable to everyone?
    General Dempsey. Military health benefit reform has been shaped 
over the last 8 years by program and policy experts, Members of 
Congress, constituencies, and subject matter experts from within and 
outside of the Department. The Department's proposals have been and 
will continue to be based on sound principles, as well as feedback from 
these stakeholders.

    56. Senator Inhofe. General Dempsey, it seems to me that DOD should 
wait on the Military Compensation and Retirement Modernization 
Commission to report its recommendations before asking Congress to make 
piecemeal changes to personnel benefits. Do you agree or disagree, and 
why or why not?
    General Dempsey. The Commission has a unique opportunity to make 
real and substantive change. We also recognize that comprehensively 
reviewing all areas of military pay and benefits, developing 
recommendations for change, and vetting them within DOD and with other 
Departments takes time. We would like to take that time, but 
sequestration has radically changed the budget reality and demands more 
rapid action from the Department and Congress if we are to sustain 
long-term readiness and modernization.

    57. Senator Inhofe. General Dempsey, wouldn't development of a 
comprehensive package of compensation and retirement benefit changes, 
to include health benefit changes, make more sense rather than a piece-
meal approach that wouldn't get us to an optimal solution for 
controlling DOD's sky-rocketing personnel costs?
    General Dempsey. If we had the luxury of time to allow development 
of a comprehensive package before making any changes, we would support 
it. However, given the enormous pressure the DOD budget is under, we 
need to act with urgency on both efficiencies and compensation reform 
if we are to maintain an acceptable level of military capability, 
capacity, and readiness to be able to conduct our military missions. I 
am not convinced that there is excessive risk in getting compensation 
and benefits under control through carefully, but quickly, considered 
individual actions.

                            adequate forces
    58. Senator Inhofe. General Dempsey, in your professional judgment, 
how far can we go with the elimination of brigades, ships, and 
squadrons before we incur unacceptable risks to our national security?
    General Dempsey. The SCMR's purpose was to look at these numbers. 
We are taking the SCMR results and continuing to analyze impacts and 
assess options. The QDR will use the foundations that the SCMR provided 
to best determine how far we can go without reaching unacceptable risk.

    59. Senator Inhofe. General Dempsey, aside from the issue of the 
hollowness of our forces, will sequestration require the elimination of 
more brigades, ships, and squadrons to the point where we will not have 
enough forces to carry out even one major contingency operation with 
enough Reserves to deter a second adversary?
    General Dempsey. No, I do not believe that we will reach that 
point. As long as we have access to the Reserves, we will have enough 
forces to deter a second adversary; however it will take time to ensure 
they are fully trained and ready for the contingency along with the 
time to get them from the homeland to the fight. In essence, we will be 
able to do fewer things simultaneously, and new contingencies may force 
us to take risk in other regions. We will be less flexible. That much 
is clear.

    60. Senator Inhofe. General Dempsey, does a potential looming 
crisis or conflict with Iran constrain your options to take military 
action in other parts of the world due to resource limitations? 
Specifically, are you concerned that taking action in Syria, combined 
with readiness and resource impacts due to budget cuts and 
sequestration, invites too much strategic risk if friction with Iran 
results in a conflict in the Gulf as well?
    General Dempsey. We are currently postured to respond to 
contingencies in the Gulf and are watching Iran very closely. Any use 
of additional forces than those that are deployed right now or those 
that are next to deploy will require time to train and equip to ensure 
they are ready to respond as replacements and this will cause increased 
stress on the force in regards to dwell time. However, our global reach 
and strike capabilities contribute to our ability to deter and assure, 
helping to mitigate this concern.

                army end strength and mission execution
    61. Senator Inhofe. General Dempsey, can you provide us an 
assessment of the impact of the reduction of 10 Brigade Combat Teams 
(BCT) on DOD's ability to meet the requirements of the National 
Military Strategy (NMS)?
    General Dempsey. These BCT reductions will reduce the part of the 
force that the Army actually increased over the last 10 years to fight 
our wars. With the planned drawdown of these forces, and the conclusion 
of two long-term stability operations, we can manage our strategy with 
the reductions the Army has planned. Also, the Defense Strategic 
Guidance deemphasized long duration stability operations and reinforced 
the importance of defeating and denying the objectives of an adversary. 
The Army is realigning and resizing consistent with this guidance.

    62. Senator Inhofe. General Dempsey, what are your concerns with 
regards to the reduction of 10 Army BCTs?
    General Dempsey. As these reductions are driven by the Army's 
drawdown of its temporary endstrength and are consistent with the 
Defense Strategic Guidance, I am not overly concerned with this 
reduction in forces. I am concerned that sequestration will force 
further reduction of ground forces end strength that decreases military 
options available to respond to contingencies and increase risk to the 
force.

    63. Senator Inhofe. General Dempsey, what is your position 
regarding a reduction of 100,000 soldiers should the full effects of 
sequestration go into effect?
    General Dempsey. Our Nation needs an Army that can conduct full 
spectrum operations as part of the Joint Force to meet the NMS 
objectives. It must be appropriately sized, structured, and equipped in 
order to defend the Nation and defeat our adversaries. We grew ground 
forces to meet the large requirements of OIF and OEF. As this war 
period comes to a close, we are assessing what is needed for the future 
in the context of constrained resources. My instincts are that a 
reduction of ground forces to levels required by full sequestration 
would pose significant risk to our national security.

    64. Senator Inhofe. General Dempsey, please provide an assessment 
of the impact of the reduction of 100,000 soldiers on DOD's ability to 
meet the requirements of the national military strategy.
    General Dempsey. At full sequestration, our national military 
strategy will need to change.

    65. Senator Inhofe. General Dempsey, what are your views regarding 
the mix of Active and Reserve Force structure should the Army be forced 
into reduction of another 100,000 soldiers?
    General Dempsey. The Army uses an established, comprehensive, and 
transparent process to determine the optimal number and mix of Active 
and Reserve component forces. We will need to work together to emerge 
with the right mix of capabilities and capacity to accomplish core 
missions with acceptable risk in accordance with the Defense Strategic 
Planning Guidance (DSG).
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                    uh-1n replacement opportunities
    66. Senator Wicker. General Dempsey, as evidenced by the recent 
relief of 17 officers at Minot Air Force Base and the reports of the 
Defense Science Board (DSB) Standing Task Force on Nuclear Weapons 
Surety, there is still a serious neglect of priority and budget for the 
sustainment of the Air Force's Priority One Nuclear Enterprise. This 
lack of prioritization and resourcing manifests in a nuclear enterprise 
that continues to conduct critical mission activities with outdated and 
insufficiently supported aircraft and ground vehicles, to include the 
woefully inadequate 40-plus-year-old UH-1N helicopter.
    The Air Force has acknowledged the need to replace the UH-1N for 
over a decade. The aircraft's inadequate speed, range and payload, and 
obsolescent sensors and monitoring equipment are well-documented. The 
use of an antiquated airframe such as the UH-1N to provide security for 
Intercontinental Ballistic Missile (ICBM) sites reflects a lack of 
proper resource prioritization by DOD.
    As Chairman and Vice Chairman of the Joint Chiefs, you are required 
to provide cross-Service oversight and recommendations that lead to the 
most effective and efficient use of the greater defense industrial 
capabilities. There are inexpensive and cost-effective solutions 
available to replace the Vietnam-era Huey being fielded by other 
Services that are far more reliable, capable, and safe.
    As demonstrated in the Senate Armed Services Committee markup of 
the NDAA for Fiscal Year 2014, I would like to understand the current 
plan for replacing the existing UH-1N fleet. In addition, I would like 
your commitment that this issue will be addressed in the upcoming 
fiscal year 2015 budget submittal. Despite being an Air Force priority 
for over 10 years, why has the replacement of the UH-1N fleet not been 
realized?
    General Dempsey. The requirement for a more responsive capability 
to meet ICBM security needs remains valid, but budget constraints in 
both the near-term and the foreseeable future make committing to new 
acquisition programs challenging. A formal replacement strategy for the 
UH-1N is due to the SASC on February 1, 2014. As potential solutions, 
the Air Force is pursuing a variety of replacement options to include 
Excess Defense Articles at low or no cost. We remain committed to 
remaining involved and attentive to this requirement.

    67. Senator Wicker. General Dempsey, the leadership of Air Force 
Global Strike Command (AFGSC) recently commented that: ``I have had an 
urgent and compelling need since 1996 in terms of speed, range, and 
payload . . . the UH-1 does not meet the need. How much longer are we 
willing to wait and take this risk?'' Has there been any change to the 
ICBM security force posture that you believe makes the replacement of 
the UH-1 less compelling or a more acceptable security risk?
    General Dempsey. No, the ICBM security force posture has not 
changed. The requirement to replace the UH-1s remains valid. However, 
based on budget constraints, the Air Force currently plans to sustain 
the UH-1 for another 6-10 years vice replacing them. The Air Force will 
mitigate risk by upgrading UH-1 cockpits and making them night-vision-
compatible combined with other critical safety improvements. The Air 
Force also recently received three UH-1s from the Marine Corps, which 
will increase capacity and availability. In addition, the Air Force and 
Army are examining options for the Army to transfer additional UH-1s to 
the Air Force.

    68. Senator Wicker. General Dempsey, there are aircraft being 
fielded by DOD today that are significantly more capable and less 
costly to own and operate than the UH-1N. In your leadership role on 
the Joint Requirements Oversight Council (JROC), have you, or will you, 
direct the Air Force to prioritize consideration of in-production DOD 
aircraft as a replacement for the UH-1 rather than continue to assume 
the associated security risks?
    General Dempsey. The JROC does not direct service acquisition 
decisions. Rather, it defines and validates Joint force requirements 
that are then submitted to both budget and acquisition processes. The 
JROC does validate the results of analyses of alternatives, and will be 
alert to consideration of all possible alternatives, including in-
production aircraft. When the decision is made to replace the UH-1N, a 
full and open competition will be conducted to find the helicopter that 
meets the mission requirements and provides DOD the most capable 
replacement at the most economically feasible cost. This may ultimately 
be an aircraft that is already in production, but those efficiencies 
will be evident through the proper source selection process.

    69. Senator Wicker. General Dempsey, the Combat Rescue Helicopter 
(CRH) mission requirements were determined to be overly robust and 
expensive to justify the CRH's use for the domestic support missions 
currently conducted by the UH-1N. There is concern that the lack of 
urgency regarding fielding of a UH-1 replacement may indicate an 
attempt to merge CRH and UH-1N missions in the future. Did the JROC 
review of the CRH program validate any requirement to provide site and 
convoy security for the Nation's ICBM force or for supporting the Air 
Force District of Washington VIP airlift/evacuation missions currently 
supported by the UH-1N?
    General Dempsey. The CRH's primary mission is to recover isolated 
personnel from hostile or denied territory. It will also execute 
humanitarian missions, civil search and rescue, disaster relief, 
casualty/medical evacuation, and non-combatant evacuation operations. 
CRH is not being produced to replace the UH-1N; rather it will replace 
the Air Force's aging HH-60G Pave Hawk helicopter fleet. Thus, JROC 
review and validation of the CRH requirements did not include missions 
currently supported by the UH-1N, such as providing site and convoy 
security for the Nation's ICBM force or supporting the Air Force 
District of Washington VIP airlift/evacuation missions. However, this 
would not preclude the CRH from being called upon to execute missions 
currently being performed by other vertical lift platforms.
                                 ______
                                 
    [The nomination reference of GEN Martin E. Dempsey, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 24, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chairman of the 
Joint Chiefs of Staff and appointment to the grade indicated while 
assigned to a position of importance and responsibility under title 10, 
U.S.C., sections 152 and 601:

                             To be General

    GEN Martin E. Dempsey, 0000
                                 ______
                                 
    [The biographical sketch of GEN Martin E. Dempsey, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
           Biographical Sketch of GEN Martin E. Dempsey, USA
Source of commissioned service: USMA

Educational degrees:
    U.S. Military Academy - BS - No Major
    Duke University - MA - English
    U.S. Army Command and General Staff College - MMAS - Military Arts 
and Sciences
    National Defense University - MS - National Security and Strategic 
Studies

Military schools attended:
    Armor Officer Basic and Advanced Courses
    U.S. Army Command and General Staff College
    National War College

Foreign language(s):
    French

Promotions:

------------------------------------------------------------------------
                 Promotions                      Date of Appointment
------------------------------------------------------------------------
2LT.......................................  5 Jun 74
1LT.......................................  5 Jun 76
CPT.......................................  8 Aug 78
MAJ.......................................  1 Sep 85
LTC.......................................  1 Apr 91
COL.......................................  1 Sep 95
BG........................................  1 Aug 01
MG........................................  1 Sep 04
LTG.......................................  8 Sep 05
GEN.......................................  8 Dec 08
------------------------------------------------------------------------

Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Jan 75..........................  May 76............  Platoon Leader, B
                                                       Troop, 1st
                                                       Squadron, 2d
                                                       Armored Cavalry,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
May 76..........................  Sep 77............  Support Platoon
                                                       Leader, 1st
                                                       Squadron, 2d
                                                       Armored Cavalry,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Sep 77..........................  Jun 78............  S-1 (Personnel),
                                                       1st Squadron, 2d
                                                       Armored Cavalry,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Jul 78..........................  Jan 79............  Student, Armor
                                                       Officer Advanced
                                                       Course, U.S. Army
                                                       Armor School,
                                                       Fort Knox, KY
Apr 79..........................  Jan 80............  Motor Officer, 1st
                                                       Squadron, 10th
                                                       Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO
Jan 80..........................  Oct 80............  Commander, A
                                                       Troop, 1st
                                                       Squadron, 10th
                                                       Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO
Oct 80..........................  Jun 81............  S-3 (Operations),
                                                       1st Squadron,
                                                       10th Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO
Jun 81..........................  Jul 82............  Commander,
                                                       Headquarters and
                                                       Headquarters
                                                       Troop, 1st
                                                       Squadron, 10th
                                                       Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO
Aug 82..........................  May 84............  Student, Duke
                                                       University,
                                                       Durham, NC
Jun 84..........................  Jul 87............  Instructor, later
                                                       Assistant
                                                       Professor,
                                                       Department of
                                                       English, U.S.
                                                       Military Academy,
                                                       West Point, NY
Aug 87..........................  Jun 88............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
Jul 88..........................  Sep 89............  Executive Officer,
                                                       4th Battalion,
                                                       67th Armor, 3d
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Sep 89..........................  May 91............  S-3 (Operations),
                                                       later Executive
                                                       Officer, 3d
                                                       Brigade, 3d
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia
Jul 91..........................  Jun 93............  Commander, 4th
                                                       Battalion, 67th
                                                       Armor, 1st
                                                       Brigade, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Jul 93..........................  Jun 95............  Chief, Armor
                                                       Branch, Combat
                                                       Arms Division,
                                                       Officer Personnel
                                                       Management
                                                       Directorate, U.S.
                                                       Total Army
                                                       Personnel
                                                       Command,
                                                       Alexandria, VA
Aug 95..........................  Jun 96............  Student, National
                                                       War College, Fort
                                                       Lesley J. McNair,
                                                       Washington, DC
Jul 96..........................  Jul 98............  Commander, 3d
                                                       Armored Cavalry
                                                       Regiment, Fort
                                                       Carson, CO
Jul 98..........................  Oct 99............  Assistant Deputy
                                                       Director for
                                                       Politico-Military
                                                       Affairs, Europe
                                                       and Africa, J-5,
                                                       The Joint Staff,
                                                       Washington, DC
Oct 99..........................  Aug 01............  Special Assistant
                                                       to the Chairman
                                                       of the Joint
                                                       Chiefs of Staff,
                                                       The Joint Staff,
                                                       Washington, DC
Sep 01..........................  Jun 03............  Program Manager,
                                                       Saudi Arabian
                                                       National Guard
                                                       Modernization
                                                       Program, Saudi
                                                       Arabia
Jun 03..........................  Oct 04............  Commanding
                                                       General, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army
                                                       Operation Iraqi
                                                       Freedom, Iraq
Oct 04..........................  Jul 05............  Commanding
                                                       General, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Aug 05..........................  May 07............  Commander, Multi-
                                                       National Security
                                                       Transition
                                                       Command-Iraq/
                                                       Commander, NATO
                                                       Training Mission-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq
Aug 07..........................  Mar 08............  Deputy Commander,
                                                       U.S. Central
                                                       Command, MacDill
                                                       Air Force Base,
                                                       FL
Mar 08..........................  Oct 08............  Acting Commander,
                                                       U.S. Central
                                                       Command, MacDill
                                                       Air Force Base,
                                                       FL
Dec 08..........................  Mar 11............  Commanding
                                                       General, U.S.
                                                       Army Training and
                                                       Doctrine Command,
                                                       Fort Monroe, VA
Apr 11..........................  Sep 11............  Chief of Staff,
                                                       U.S. Army,
                                                       Washington, DC
Sep 11..........................  Present...........  Chief of the Joint
                                                       Chiefs of Staff,
                                                       Washington, DC
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
            Assignments                    Date              Grade
------------------------------------------------------------------------
Assistant Deputy Director for          Jul 98-Oct 99                   Colonel
 Politico-Military Affairs, Europe
 and Africa, J-5, The Joint Staff,
 Washington, DC....................
Special Assistant to the Chairman      Oct 99-Aug 01                   Colonel
 of the Joint Chiefs of Staff, The
 Joint Staff, Washington, DC.......
Commander, Multi-National Security     Aug 05-May 07  Lieutenant General
 Transition Command-Iraq/Commander,
 NATO Training Mission-Iraq,
 Operation Iraqi Freedom, Iraq.....
Deputy Commander, U.S. Central         Aug 07-Mar 08  Lieutenant General
 Command, MacDill Air Force Base,
 FL................................
Acting Commander, U.S. Central         Mar 08-Oct 08  Lieutenant General
 Command, MacDill Air Force Base,
 FL................................
Chairman of the Joint Chiefs of       Sep 11-Present            General
 Staff, Washington, DC.............
------------------------------------------------------------------------


Summary of operational assignments:

------------------------------------------------------------------------
            Assignments                    Date              Grade
------------------------------------------------------------------------
Executive Officer, 3d Brigade, 3d      Jan 91-Feb 91        Lieutenant Colonel
 Armored Division, U.S. Army Europe
 and Seventh Army, Operations
 Desert Shield/Storm, Saudi Arabia.
Commanding General, 1st Armored        Jun 03-Oct 04  Brigadier General/
 Division, U.S. Army Europe and                           Major General
 Seventh Army, Operation Iraqi
 Freedom, Iraq.....................
Commander, Multi-National Security     Aug 05-May 07  Lieutenant General
 Transition Command-Iraq/Commander,
 NATO Training Mission-Iraq,
 Operation Iraqi Freedom, Iraq.....
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal (with Oak Leaf Cluster)
    Distinguished Service Medal (with three Oak Leaf Clusters)
    Defense Superior Service Medal
    Legion of Merit (with two Oak Leaf Clusters)
    Bronze Star Medal with ``V'' Device
    Bronze Star Medal
    Meritorious Service Medal (with two Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal
    Army Achievement Medal (with Oak Leaf Cluster)
    Combat Action Badge
    Parachutist Badge
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN Martin E. 
Dempsey, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Martin E. Dempsey.

    2. Position to which nominated:
    Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    June 24, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 14, 1952; Jersey City, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Diane Sullivan Dempsey.

    7. Names and ages of children:
    Christopher, 34.
    Megan, 33.
    Caitlin, 30.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Veteran of Foreign Wars.
    Member, Association of the U.S. Army.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    I, Martin E. Dempsey, agree, if confirmed, to appear and testify 
upon request before any duly constituted committee of the Senate.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    I, Martin E. Dempsey, agree, when asked before any duly constituted 
committee of Congress, to give my personal views, even if those views 
differ from the administration in power.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Martin E. Dempsey.
    This 23rd day of May, 2013.

    [The nomination of GEN Martin E. Dempsey, USA, was reported 
to the Senate by Chairman Levin on July 30, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 1, 2013.]
                              ----------                              

    [Prepared questions submitted to ADM James A. Winnefeld, 
Jr., USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. On previous occasions you have answered the committee's 
policy questions on the reforms brought about by the Goldwater-Nichols 
Act, the last time being in connection with your first nomination to be 
Vice Chairman of the Joint Chiefs of Staff.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the committee at your 
last confirmation hearing?
    Answer. My views have not changed. I have served in various joint 
capacities throughout my naval career and I've now had the privilege to 
serve 2 years as Vice Chairman of the Joint Chiefs of Staff. My recent 
experience confirms the tremendous advancements created by this 
landmark legislation. I do not see a need to change the provisions of 
this legislation at this time.
    Question. In light of your experience as Chairman, do you see any 
need for modifications to Goldwater-Nichols? If so, what modifications 
do you believe would be appropriate?
    Answer. Reflecting on my recent experience, I do not believe 
changes to Goldwater-Nichols are necessary at this time. However, if 
confirmed, I will remain alert to opportunities or shortcomings that 
might indicate that changes to the legislation are warranted.
                                 duties
    Question. Based on your experience as Vice Chairman, what 
recommendations, if any, do you have for changes in the duties and 
functions set forth in section 154 of title 10, U.S.C., and in 
regulations of the Department of Defense (DOD), that pertain to the 
Vice Chairman of the Joint Chiefs of Staff and the organization and 
operation of the Joint Staff in general?
    Answer. If confirmed, I do not foresee recommending any changes to 
the law. I will, however, remain attuned to potential issues and 
opportunities for improvement.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Vice Chairman of the Joint Chiefs of Staff to the following 
officials:
    The Secretary of Defense.
    Answer. The Vice Chairman performs the duties assigned to him and 
other such duties as may be assigned by the Chairman, with the approval 
of the Secretary of Defense. Additionally, in the absence or disability 
of the Chairman, the Vice Chairman acts as the Chairman and performs 
the duties of the Chairman until a successor is appointed or until the 
absence or disability ceases. These duties would include providing 
military advice to the Secretary of Defense. The Vice Chairman may also 
provide the Secretary of Defense advice upon the Secretary's request in 
his capacity as a military adviser.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense has been delegated full 
power and authority to act for the Secretary of Defense on any matters 
upon which the Secretary is authorized to act. As such, the 
relationship of the Vice Chairman with the Deputy Secretary is similar 
to that with the Secretary.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman performs the duties assigned to him as a 
member of the Joint Chiefs of Staff and such other duties as assigned 
by the Chairman, with the approval of the Secretary of Defense. When 
there is a vacancy in the office of the Chairman, or during the absence 
or disability of the Chairman, the Vice Chairman acts as Chairman and 
performs the duties of the Chairman until a successor is appointed or 
the absence or disability ceases. If confirmed, I look forward to 
continuing my close working relationship with the Chairman.
    Question. The Under Secretary of Defense for Acquisition, 
Technology and Logistics (USD(AT&L)).
    Answer. Title 10, U.S.C. and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisers to the Secretary regarding matters related to their functional 
areas. With particular regard to the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD(AT&L)), the Vice Chairman 
serves on many deliberative panels focused on resource decisions, 
including the Deputies Advisory Working Group as its Vice Chair and as 
Chairman of the Joint Requirements Oversight Council (JROC). If 
confirmed, I look forward to continuing to work very closely with the 
USD(AT&L) on continuing improvements to the requirements process and 
providing senior-level focus on key acquisition programs.
    Question. The Under Secretary of Defense (Comptroller) (USD(C)).
    Answer. I recognize the importance of the Vice Chairman working 
closely with the Under Secretary of Defense (Comptroller) in 
appropriately managing and providing oversight of the budgetary and 
fiscal processes of the Joint Staff required to achieve the budgetary 
goals prescribed by the Secretary of Defense and Chairman of the Joint 
Chiefs of Staff.
    Question. The Under Secretary of Defense for Policy (USD(P)).
    Answer. The Vice Chairman and USD(P) work together to represent 
defense and military interests in interagency affairs. They often co-
lead or serve together on various ad hoc committees or projects as 
directed by Congress or as assigned from time to time by Secretary of 
Defense or by the Chairman of the Joint Chiefs, such as the Nuclear 
Weapons Committee or the Deputy's Management Action Group. The Vice 
Chairman and USD(P) also serve together on the Deputies Committee, 
monitoring the work of various interagency policy committees as well as 
supporting the Principals Committee and the National Security Council. 
If confirmed, I plan to continue my frequent interaction with the 
USD(P).
    Question. The other Under Secretaries of Defense.
    Answer. Within their assigned areas, Under Secretaries exercise 
policy and oversight functions and interact frequently with the Joint 
Staff. They may issue instructions and directive-type memoranda that 
implement policy approved by the Secretary. These instructions and 
directives are applicable to all DOD components. In carrying out their 
responsibilities, and when directed by the President and Secretary of 
Defense, communications from the Under Secretaries to commanders of the 
unified and specified commands are transmitted through the Chairman of 
the Joint Chiefs of Staff. If confirmed, I will continue to work 
closely with the Under Secretaries of Defense.
    Question. The Director of Cost Assessment and Program Evaluation.
    Answer. Title 10, U.S.C., and current DOD directives establish the 
Director of Cost Assessment and Program Evaluation as a principal 
advisor to the Secretary of Defense and other senior officials of DOD 
on cost assessment and program evaluation. If confirmed, I look forward 
to continuing to work closely with the Director under the auspices of 
the Vice Chairman's resourcing and requirements functions, as well as 
benefitting from the extensive and independent analysis provided by the 
Cost Assessment and Program Evaluation office towards making informed 
resourcing decisions.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for Public Affairs, Legislative Affairs, and for Networks and 
Information Integration, all Assistant Secretaries of Defense are 
subordinate to one of the Under Secretaries of Defense. In carrying out 
their responsibilities, and when directed by the President and 
Secretary of Defense, communications from the Under Secretaries to 
commanders of unified and specified commands are transmitted through 
the Chairman of the Joint Chiefs of Staff. If confirmed, I will 
continue to work closely with the Assistant Secretaries in a manner 
similar to that of working with the Under Secretaries.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, U.S.C., section 165 provides that, subject to the 
authority, direction, and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of Military Departments are responsible for administration and support 
of forces assigned to unified and specified commands.
    The Chairman, or Vice Chairman when directed or when acting as the 
Chairman, advises the Secretary of Defense on the extent to which 
program recommendations and budget proposals of the military 
departments conform with priorities in strategic plans and with the 
requirements of the combatant commanders. The Vice Chairman has 
numerous interactions with the Service Secretaries in the various 
management forums within the Department. Finally, in his role as the 
Chairman of the JROC, the Vice Chairman has considerable interaction 
with the Service Secretaries' acquisition staffs. If confirmed, I look 
forward to continuing my close and productive working relationship with 
the Service Secretaries and their staffs.
    Question. The Chiefs of Staff of the Army and Air Force and the 
Chief of Naval Operations.
    Answer. The Service Chiefs serve two significant roles. First, they 
are responsible for the organization, manning, training, and equipping 
of their respective Services. Without the full support and cooperation 
of the Service Chiefs, no combatant commander can be ensured of the 
readiness of his assigned forces for missions directed by the President 
and Secretary of Defense. Second, as members of the Joint Chiefs of 
Staff, they are advisors to the Chairman and the Secretary of Defense 
as the senior uniformed leaders of their respective Services. The 
Service Vice Chiefs play a key role on the JROC, chaired by the Vice 
Chairman. If confirmed, I will continue to work closely with the 
Service Chiefs and their Vice Chiefs to fulfill the combatant 
commanders' warfighting and operational requirements, and on other 
relevant policy matters.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard heads a joint activity of 
DOD and is the senior uniformed National Guard officer responsible for 
formulating, developing and coordinating all policies, programs and 
plans affecting more than half a million Army and Air National Guard 
personnel. Appointed by the President, he serves as principal adviser 
to the Secretary of Defense through the Chairman of the Joint Chiefs of 
Staff on National Guard matters. He is also the principal adviser to 
the Secretary and Chief of Staff of the Army and the Secretary and 
Chief of Staff of the Air Force on all National Guard issues. As 
National Guard Bureau Chief, he serves as the department's official 
channel of communication with the Governors and Adjutants General. As a 
member of the Joint Chiefs of Staff, the Chief of the National Guard 
Bureau has the specific responsibility of addressing matters involving 
non-Federalized National Guard forces in support of homeland defense 
and civil support missions. If confirmed, I will continue to work 
closely with the Chief of the National Guard Bureau to provide support 
as required.
    Question. The Combatant Commanders.
    Answer. The combatant commanders fight our wars and conduct 
military operations around the world. The Chairman provides a vital 
link between the combatant commanders and other elements of DOD and, as 
directed by the President, may serve as the means of communication 
between the combatant commanders and the President or Secretary of 
Defense. When there is a vacancy in the office of Chairman or in the 
absence or disability of the Chairman, the Vice Chairman acts as 
Chairman when interacting with the combatant commanders. Having served 
as a combatant commander, I have clear insight into the capabilities 
and limitations of combatant command staffs. If confirmed, I will 
continue to work closely with the combatant commanders to enable their 
warfighting capabilities and provide other support as required.
                            major challenges
    Question. What do you consider to be the most significant 
challenges you have faced in your first term as Vice Chairman of the 
Joint Chiefs of Staff?
    Answer. In a world of accelerating change that is growing more 
rather than less dangerous, I have faced a number of challenges in what 
I have labeled the three portfolios of policy, investment, and people.
    In the policy portfolio, we have been grappling with a host of 
threats to our national security interests . . . in Afghanistan, Iran, 
and the Korean Peninsula; with the continuing evolution of al Qaeda and 
its affiliates; in the aftermath of the Arab Awakening in Libya, Syria 
and Egypt; and within the increasingly complex cyber domain. 
Maintaining a balanced approach to securing our interests in these 
areas in a declining budget environment requires constant effort.
    In the investment portfolio, we continue to struggle with budget 
challenges that are quietly eroding our readiness to defend this nation 
today and have impacted our ability to prepare for tomorrow. I was 
confirmed on the day the Budget Control Act was passed, and have 
discovered that the Vice Chairman has a unique role in encouraging the 
various elements of the Department in coming to grips with the reality 
of decreasing budgets
    In the people portfolio we are trying to manage the enormous 
uncertainty to which our military and civilian members and their 
families are exposed as Congress struggles to come to agreement on a 
budget. We have also expended considerable effort to ensure proper care 
for our wounded, ill, and injured members, as well as finding every 
lever we can to eliminate the pernicious insider threat of sexual 
assault.
    Much remains to be done in all three of these portfolios. If 
reconfirmed, I look forward to continuing to serve this great Nation in 
uniform, and pledge to work with this committee to strike the right 
balance among ends, ways, and means of protecting our country and its 
interests.
    Question. What new challenges do you expect to face if you are 
confirmed for a second term?
    Answer. If confirmed, my foremost challenge will be to continue 
supporting the Secretary and Chairman in guiding the force through 
fiscal contraction while sustaining readiness and protecting our Nation 
and its security interests. The challenges I listed above will 
persist--indeed, they may become worse as the Department's fiscal 
uncertainty deepens--and require constant attention and visionary 
leadership. As always, new problems will emerge: new crises and 
contingencies; new hurdles in tending to the capability, capacity, and 
readiness of the force; and new challenges faced by our most important 
resource, namely our people.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will renew my efforts to support the 
Chairman and Secretary. There is much to be done. There is more 
progress to be made balancing the ends, ways and means of strategy--
particularly in preserving as many of our ``ends'' as possible by 
refining our ``ways'' as the ``means'' continue to decline--this means 
new ways of applying force and refreshing our plans on how and where we 
do it. We need to continue our press for a more efficient Department, 
leveraging congressional assistance where possible in doing so. We must 
ensure our people navigate the shoals of a changing financial and 
operational environment--and we need to remain persistent in our 
determination that they perform to the highest possible standards in 
terms of integrity, conduct, and respect for taxpayer dollars. Finally, 
I will use my leadership of the Joint Requirements Oversight Committee 
(JROC) and the budgeting and acquisition sides of the investment 
triangle to find the right balance among the capability, capacity, and 
readiness of our force. In these and other ways I will lend my best 
efforts to ensuring our Nation is safe.
                               priorities
    Question. Recognizing that challenges, anticipated and unforeseen, 
will drive your priorities to a substantial degree, if confirmed, what 
other priorities, beyond those associated with the major challenges you 
identified in the section above, would you set for your second term as 
Vice Chairman?
    Answer. There are a number of specific areas I will maintain high 
on a list of priorities. Among these are:

        <bullet> Working closely with interagency stakeholders, U.S. 
        Central Command (CENTCOM) and International Security Assistance 
        Force (ISAF) to ensure the trajectory of our efforts in 
        Afghanistan remain on track.
        <bullet> Ensuring the Department is fully prepared to support 
        the President regarding any decision he may make regarding use 
        of force in any of several areas where it may become necessary.
        <bullet> Maintaining unrelenting emphasis on every possible 
        aspect of conquering the insider threat of sexual assault in 
        our ranks.
        <bullet> Continuing to ensure the Department's budget decisions 
        are based on strategy and that they emphasize improved 
        efficiency before reducing military capability, capacity, or 
        readiness.
        <bullet> Highlighting the importance of readiness in an 
        environment where it will be tempting to preserve politically-
        attractive capacity and capability at its expense.
        <bullet> Maintaining emphasis on wounded warrior programs even 
        as the number of new wounded members declines due to the 
        transition in Afghanistan--these heroes require care long after 
        they return home.
        <bullet> Building on a good trajectory of requirements and 
        acquisition reform and remaining vigilant regarding current and 
        future programs--there is much to be done in this area.
        <bullet> Ensuring the Department maintains a collegial and 
        influential relationship with the National Nuclear Security 
        Administration to ensure the needs of our nuclear 
        infrastructure are met.
        <bullet> Pressing for high-leverage technical innovation that 
        is relevant to the current and future warfighting environment.
        <bullet> Working closely with my fellow senior military leaders 
        to ensure we all serve with distinction and integrity.
                  joint requirements oversight council
    Question. The Vice Chairman of the Joint Chiefs of Staff serves as 
the Chairman of the JROC, which has the responsibility to review and 
validate Service requirements.
    Are there any recommendations that you would make to modify the 
JROC or its authority or the requirements process?
    Answer. I do not believe additional formal changes or modifications 
to the JROC, its authority, or the requirements process are needed at 
this time. The JROC's authority as detailed in title 10, U.S.C., 
section 181, is sufficient to allow the JROC to carry out its 
responsibilities for overseeing the joint military requirements 
process. We continue to make every effort within existing authorities 
to improve JROC processes and products.
    Question. Has the `trip-wire' process, to bring troubled programs 
back to the JROC for a review and to consider performance trade-offs to 
mitigate further cost growth and/or schedule delays before the program 
faced a Nunn-McCurdy review, been regularly employed on large programs 
that have experienced significant cost growth and schedule delays?
    Answer. The trip wire process continues to function well. We have 
expanded the trip-wire process to include both schedule delays and 
quantity changes, in addition to cost growth, when validating 
capability documents. Only a few programs have recently exceeded trip-
wire values. The most recent case was a review of the Warfighter 
Information Network-Tactical Increment 2 for an IOC schedule delay of 
greater than 12 months.
    However, rather than waiting for trip-wires to be breached, we try 
to proactively engage programs and their requirements. I recently 
signed out a Key Performance Parameter (KPP) Relief JROCM (015-13) 
which was intended to encourage acquisition managers, in coordination 
with the appropriate requirements sponsors, to officially request 
requirements relief where KPPs appear out of line with a cost-benefit 
analysis. This has resulted in KPP changes for the Three Dimensional 
Expeditionary Long-Range Radar, Joint Light Tactical Vehicle, and 
Armored Multi-Purpose Vehicle.
    Question. Has the JROC altered requirements, either for performance 
or procurement quantities, as a result of such reviews?
    Answer. As previously stated, only a few program reviews have been 
required as a result of their exceeding trip-wire values. In the case 
of Warfighter Information Network-Tactical (WIN-T) Increment 2, the 
JROC acknowledged that the schedule delay was driven primarily by the 
extension of fielding schedules and funding alignment and no change was 
made to performance or procurement quantities.
    On the other hand, there have been performance parameter changes 
due to cost-benefit analysis resulting from the KPP Relief JROCM, which 
encourages requirements reviews when appropriate. Whether for a trip-
wire breach or a proactive scrub of the requirements, we have recently 
made KPP changes to the following programs: Long Range Strike-Bomber 
(LRS-B), Joint Strike Fighter, Joint Light Tactical Vehicle, Unmanned 
Carrier Launched Airborne Surveillance and Strike, Armored Multi-
Purpose Vehicle, WIN-T, Three Dimensional Expeditionary Long-Range 
Radar, Common Point Ground System, Air and Missile Defense Radar, and 
Global Positioning System Modernization.
    Question. Weapon Systems Acquisition Reform Act of 2009 (WSARA) 
required the Secretary of Defense to ensure that trade-off analyses are 
conducted on cost, schedule, and performance as part of the 
requirements development and approval process. Such analyses enhance 
DOD's understanding of what performance factors are the critical ones 
driving costs and schedules.
    What is your view of the modifications to the JROC process made by 
WSARA?
    Answer. I fully support the major revisions to the joint 
warfighting requirements process that were made in early 2012. This 
includes updates to governing documents and the means by which 
supporting bodies carry out their responsibilities in accordance with 
title 10, U.S.C., section 181, and applicable portions of the WSARA 
(primarily sections 105 and 201). We critically assess the impact of 
requirements on the cost, schedule and performance of programs as a 
matter of routine when those programs are in front of the JROC.
    Question. What additional steps do you believe that Congress or DOD 
should take to ensure that trade-offs between cost, schedule, and 
performance objectives for major weapon systems are made at an 
appropriately early point in the acquisition process?
    Answer. DOD is striving to push capability gap information out to 
industry earlier in the acquisition process. By partnering early with 
industry and providing timely insight into our vision for future 
capabilities, DOD is better able to leverage industry science and 
technology (S&T) efforts and, informed by early S&T development, 
provide feasible and affordable options for acquisition decisions. A 
recent example of this approach is the Army's Future Vertical Lift 
Initial Capabilities Document which defined capability gaps in the 2030 
and beyond Joint Operational Environment. There is no doubt more we can 
do in this area.
    The JROC also considers cost, schedule, and performance tradeoffs 
as early as the analysis of alternatives (AoA) review.
    Question. Are there any other recommendations that you would make 
to modify the JROC or its authority or the requirements process?
    Answer. I do not believe additional changes or modifications to the 
JROC, its authority, or the requirements process are needed at this 
time. The JROC's authority as detailed in title 10, U.S.C., section 
181, is sufficient to allow the JROC to carry out its responsibilities 
for overseeing the joint military requirements process. That said, we 
continue to make every effort within existing authorities to improve 
internal JROC processes and products.
    Question. How would you assess the effectiveness of the JROC in the 
DOD acquisition process?
    Answer. The changes to the JROC process have enabled a much closer 
relationship with USD(AT&L) by ensuring that requirements and their 
associated costs are continually evaluated through the acquisition 
life-cycle. We currently have an excellent relationship with USD(AT&L), 
to include their participation as one of the statutory experts invited 
to JROC meetings. Their insights are most valuable as we consider 
requirements alternatives, while at the same time we work closely with 
them to ensure requirements are kept under control and, in some cases, 
prudently trimmed as informed by a cost, schedule, performance and 
warfighter needs.
    Question. What is your vision for the role and priorities of the 
JROC in the future?
    Answer. The JROC is our key body shaping the future Joint Force 
(title 10, U.S.C., section 181). The priorities for the JROC and the 
JCIDS process are to: (1) debate strategic and operational requirements 
and make difficult choices earlier; (2) strive for better upfront 
fidelity on cost/schedule/performance tradeoffs; (3) require greater 
analytic rigor and risk/portfolio analysis; and (4) ensure a more 
dynamic/iterative process throughout a program's lifecycle. 
Additionally, the JROC could play an important role in retuning system 
requirements in the face of the dramatic resource reductions stipulated 
by the full BCA caps.
    Question. Do you believe the JROC process is sufficient to 
understand and identify where there are opportunities for multi-service 
collaboration or where programs could or should be modified to take 
advantage of related acquisition programs?
    Answer. Yes. We developed and expanded opportunities for multi-
service collaboration for several programs during the past couple of 
years, including ground and amphibious combat vehicles and long range 
air search radars. This is always a difficult issue for the individual 
Services, but we have managed to make progress in this area thanks to a 
group of open-minded Service Vice Chiefs.
    Question. What principles guide your approach to inviting, and 
helping ensure the sufficient participation of other stakeholders in 
the JROC?
    Answer. Over the past several years, the JROC has been refined into 
a more lean executive body where key leaders and advisors have frank 
and open discussions. In addition to the statutory members and 
advisors, combatant commanders participate when appropriate. I strongly 
believe in the importance of including these stakeholders, and I turn 
to them with an offer to speak on every issue, and they have been 
forthcoming. In short, we have created a smaller more intimate forum 
that still includes the major stakeholders, which has led to a more 
fulsome discussion of requirements issues.
         joint capabilities integration and development systems
    Question. What is your perspective on the responsiveness of the 
Joint Capabilities Integration and Development Systems (JCIDS) process 
in addressing joint capabilities needs?
    Answer. We work requirements based on urgency: life/death 
requirements for current conflicts are worked in days; requirements to 
address conflicts that appear to be imminent are worked in weeks to 
ensure that systems can be fielded in time; enduring warfghting 
requirements are worked as quickly as possible using our streamlined 
JCIDS. While we still look for ways to continuously improve the JCIDS 
process, it has been dramatically enhanced and addresses requirements 
through a more efficient and interactive process. Combatant commander 
input is better incorporated to ensure joint capabilities produced are 
more timely, precise and needs-based. The most recent changes to the 
process consolidate guidance documents, streamline procedures, mandate 
shorter document lengths, and reduce timelines to increase 
effectiveness and responsiveness.
    Question. What level of involvement in the joint requirements 
process and the JROC do you believe is appropriate for the COCOMs?
    Answer. As the primary customers for the capabilities delivered by 
acquisition, the combatant commanders play a critical role in the joint 
requirements process at all levels, to include the JROC. Combatant 
command input during the requirements-generation process helps ensure 
that joint-capability outcomes more accurately match the current and 
future needs of the dynamic security environment. As such, we closely 
review Combatant Commander Integrated Priority Lists and they are 
invited to participate in every meeting. It is the norm for these 
commanders to have a representative in a meeting that covers a topic of 
importance to them.
    Question. Do you think that JCIDS needs to be changed? If so, what 
are your views on how it could be improved to make the process more 
responsive to users' needs while efficiently investing resources in a 
fiscally constrained budget environment?
    Answer. Revisions made in early 2012 were a big step forward in 
improving JCIDS, and the next scheduled review and revision of key 
documents is ongoing. These documents include: The Chairman of the 
Joint Chiefs of Staff Instruction (CJCSI) 5123.01 (JROC Charter), CJCSI 
3170.01 (JCIDS Instruction), and the JCIDS Manual. Recent changes to 
JCIDS emphasize flexibility and speed in requirements generation, 
review, and validation. The changes also enable, when necessary, 
reassessment and adjustments to previously validated documents when 
poorly crafted requirements and timelines are identified. Preserving, 
and building upon, these JCIDS revisions will promote greater 
efficiencies and future success. In addition, we are working closely 
with USD(AT&L) to ensure that the Defense Acquisition System and the 
Joint Requirements processes are tightly synchronized and integrated to 
ensure that requirements are valid, feasible and affordable.
    Question. The requirements development process is not a stand-alone 
process, but instead is required to work collaboratively with the 
acquisition and budgeting processes.
    What steps are needed to better align the requirements development 
process with the acquisition and budgeting processes to make for a more 
efficient and effective process for delivering capabilities?
    Answer. The pending update to the Department of Defense Instruction 
(DODI) 5000.02 and the revisions to JCIDS guidance documents will 
improve coordination between our requirements and acquisition 
processes. Additionally, I initiated and attend a quarterly leadership 
forum with USD(AT&L) and Director-CAPE to help align requirements, 
acquisition, and resourcing. These meetings have included macro 
discussions on the process as well as a few individual programs, and I 
look forward to expanding the concept. Developing a more synchronous 
and flexible relationship between military requirements, acquisition, 
and budgets will enable DOD to deliver its warfighter capabilities at 
more reasonable costs.
             acquisition reform and acquisition management
    Question. What is your view of the changes made by the WSARA?
    Answer. The WSARA has been important in making sure new defense 
programs start on a sound footing to avoid the high cost of fixing 
problems late in the acquisition process. It also helped foster a 
culture within DOD focused on the continuous improvement of our 
acquisition processes and their associated outcomes. I am very 
encouraged by the cooperation we have built with USD(AT&L), which was 
encouraged by the tenets of the WSARA.
    Question. What role, if any, do you believe the JROC should play in 
the oversight and management of acquisition programs after requirements 
have been established?
    Answer. The JROC has an enduring title 10 oversight responsibility 
to ensure that an acquisition program's requirements are realistic and 
relevant throughout the life of the acquisition. The WSARA also 
required the Secretary of Defense--via the Chairman and the JROC--to 
ensure that trade-off analyses are conducted on cost, schedule, and 
performance as part of the requirements development and approval 
process. We are seeing this play out, as the JROC has made several mid-
stride adjustments to requirements to reflect emerging realities during 
acquisition, always ensuring warfighter needs are fully considered.
    Question. What role, if any, do you believe the JROC should play in 
reviewing the progress of major defense acquisition programs or other 
acquisition programs?
    Answer. The progress of major defense acquisition programs is 
monitored by the JROC often through Milestone C. JROC oversight is 
required to ensure that an acquisition program's requirements 
throughout its life are realistic and relevant. The WSARA also requires 
the Secretary of Defense--via the Chairman and the JROC--to ensure that 
trade-off analyses are conducted on cost, schedule, and performance as 
part of the requirements development and approval process. A good 
example of this is the JROC's continuing interest in the F-35, to 
include the helmet associated with the aircraft. The JROC requires 
periodic and detailed updates on JSF performance, cost and schedule to 
ensure KPPs are appropriate in light of cost.
    Question. Do you see a need for any change in the role of the 
Chairman or the Vice Chairman of the Joint Chiefs of Staff in the 
requirements determination, resource allocation, or acquisition 
management processes?
    Answer. No, I do not see a need for any change at this time.
    Question. What is your view of the role played by Configuration 
Steering Boards (CSB) in preventing cost growth due to requirements 
creep?
    Answer. CSBs provide an important senior level forum for 
acquisition and requirements officials to review and assess 
requirements to achieve balance between weapon system performance and 
affordability over a program's lifecycle. They institutionalize 
Military Service, Office of the Secretary of Defense (OSD), and Joint 
Staff review of potential requirements trade-offs. While the CSBs are 
gathering momentum, my understanding is that USD(AT&L) is very 
supportive of using this process to help identify areas where 
requirements may need refinement.
    Question. What do you see as the proper relationship between CSBs 
and the JROC in managing requirements for acquisition programs?
    Answer. CSBs provide an important senior level forum for 
acquisition and requirements officials to review and assess 
requirements to achieve balance between weapon system performance and 
affordability over a program's lifecycle. A key output of a CSB could 
be a recommendation to the appropriate validation authority--the JROC 
in the case of KPPs--to review or relax a requirement in order to 
achieve a better balance between performance and affordability.
    Question. What is your view of the Nunn-McCurdy requirements for 
Major Defense Acquisition Programs that fail to meet cost, schedule, 
and performance objectives?
    Answer. The Nunn-McCurdy requirements have introduced rigor into 
our processes and better scrutiny of Major Defense Acquisition Programs 
regarding cost, schedule, and performance objectives. I particularly 
appreciate the flexibility within the process to account in particular 
for price increases solely due to quantity decreases.
    Question. What do you see as the proper relationship between the 
JROC and those DOD officials charged with implementing the Nunn-McCurdy 
requirements?
    Answer. I do not recommend any changes at this time. The current 
relationship between the JROC and DOD officials charged with 
implementing the Nunn-McCurdy requirements is appropriate. The JROC's 
role is to validate the criticality to national security of the systems 
based on the estimated increase in cost.
                         urgent needs processes
    Question. In your view, what specific steps should the Department 
take to better manage the joint urgent needs process?
    Answer. The Department exercises sound management of the Joint 
Urgent Needs process. DOD Directive 5000.71 (Rapid Fulfillment of 
Combatant Commander Urgent Operational Needs) was recently approved. It 
established the Warfighter Senior Integration Group to lead and 
facilitate agile and rapid responses to validated combatant commander 
urgent operational needs. In addition, we recently added the ability 
for combatant commanders to request rapid capability fielding if 
conflict is imminent (rather than ongoing) through a Joint Emergent 
Operational Needs (JEON) document. I believe we have struck the right 
discipline and balance between addressing truly urgent and emergent 
warfighter needs and merely using the system to circumvent the rigor of 
the deliberate process (while at the same time we are streamlining the 
latter process).
    Question. What is your sense of where DOD might consolidate urgent 
needs entities and/or processes and how cost savings could be achieved 
through such consolidation?
    Answer. This is an area where we have taken many steps, and seen 
important results, over the past several years. To further improve upon 
our efforts, the Department is reviewing the entities and processes 
that we use to fill urgent capability gaps in light of our drawdown 
from Afghanistan. Without pre-judging any results, it is possible we 
could consolidate these entities, and we will remain vigilant for such 
opportunities. The goal will be to ensure the Department is still 
poised to quickly address evolving threats as we draw down from our 
wartime footing, while ensuring the efforts are properly-scaled for 
anticipated future requirements.
    Question. Do you believe that the Joint Staff should take steps to 
integrate the Joint Urgent Needs process with the individual services' 
processes? If so, please explain?
    Answer. We are currently reviewing our urgent needs processes, to 
include seeking efficiencies and deconfliction between the Services' 
processes and joint processes. Despite the success of our joint 
processes, I believe we will find that each Service will still need a 
way to address critical needs that are specific to their component.
                        nuclear weapons council
    Question. If confirmed as Vice Chairman of the Joint Chiefs of 
Staff, you will continue to serve as a member of the Nuclear Weapons 
Council.
    What would your priorities be for the Nuclear Weapons Council 
(NWC)?
    Answer. Sustaining a safe, secure, and effective nuclear arsenal is 
a key priority in the 2010 Nuclear Posture Review (NPR), central to the 
responsibilities of the NWC. I have worked closely with the other NWC 
members to develop a plan for the Nuclear Enterprise that is 
responsible and affordable to ensure a safe, secure, and effective 
nuclear arsenal for the long term. The refinement and execution of this 
plan continues to be my priority. We will need to remain vigilant, as 
the effects of potential full sequestration levels of funding on the 
Enterprise are not yet fully understood.
    Additionally, I will continue to work with other NWC members to 
ensure modernization of our aging nuclear facilities and investment in 
nuclear enterprise-related human capital, to accelerate dismantlement 
of retired warheads, and to improve our understanding of foreign 
nuclear weapons activities.
    Question. What changes if any would you recommend to the 
organization, structure, or function of the NWC?
    Answer. I have served as a member of the NWC for the past 2 years 
and have no firm change recommendations at this time. However, if 
confirmed, I will continue work with the NWC chairman and members to 
assess the organization, structure and function of the NWC, and where 
warranted, provide recommendations for changes to increase 
effectiveness and value in support of the nuclear mission for national 
security. I will also remain alert for any need to adjust governance of 
the Nuclear Enterprise's activities.
                     integration of space programs
    Question. What is your view on the need to institute a more 
integrated approach to both the military and intelligence sides of the 
space community?
    Answer. I believe we are making progress in this area. The military 
and intelligence space communities participate in a number of joint 
forums and joint program development. We expect senior leaders to be 
innovative in identifying and implementing integrated programs. This is 
necessary for efficacy and efficiency in a much more constrained budget 
environment. However, when the needs of either community diverge to the 
extent that joint solutions impose impractical cost and risk, careful 
consideration should be given to viable independent, yet complementary 
solutions.
                        space program management
    Question. In many instances the military and intelligence space 
programs have experienced technical, budget, and schedule difficulties. 
In some instances these difficulties can be traced to problems with 
establishing realistic, clear, requirements and then maintaining 
control over the integrity of the requirements once established. If 
confirmed as chairman of the JROC you will be involved in determining 
these requirements.
    How in your view can or should the space systems requirements 
process be improved?
    Answer. All weapon systems requirements are closely scrutinized to 
best meet the needs of the Joint Force in terms of cost, schedule, and 
performance. If confirmed, I will continue to work with senior leaders 
to improve early and continuous coordination between OSD, the military, 
and intelligence communities throughout the space acquisition 
requirements process. The active participation of the U.S. Strategic 
Command (STRATCOM) Commander has been most helpful in this regard.
    Question. In general, space programs take many years to move from 
conception to launch. The result is that the technology in the 
satellites is significantly outdated by the time the satellites are 
launched and operational, which in turn, can lead to a decision to 
terminate a program early, and look to a newer technology. This vicious 
cycle results in significantly increased costs for space systems as 
sunk costs are never fully amortized.
    How in your view can this cycle be addressed?
    Answer. The WSARA is designed to help ensure that new defense 
acquisition programs start on a sound footing, to avoid the high cost 
and schedule impacts of fixing problems later in the acquisition 
process.
    Some aspects of this phenomenon will be very difficult to fix, as 
satellites by nature of their complexity and rigorous requirement for 
reliability take considerable time to design, build, and launch. 
However, I believe we can make improvements in our space programs by 
ensuring early, ongoing and rigorous reviews of costs, requirements, 
and performance, and their alignment. Again, bringing the expertise 
available from the STRATCOM Commander will be a key element in placing 
this cycle on a tighter rotation.
                           space cooperation
    Question. Do you support arms control limitations on space 
capabilities?
    I continue to support the principles outlined in the 2010 National 
Space Policy, which states that the United States will pursue bilateral 
and multilateral transparency and confidence-building measures to 
encourage responsible actions in, and the peaceful use of, space. The 
Department should only consider proposals and concepts for arms control 
measures that are equitable, effectively verifiable, and enhance the 
national security of the United States and its allies.
    Question. Would you support the United States signing the so-called 
European Union Code of Conduct for Outer Space Activities?
    Answer. The Department is currently supporting the State Department 
in negotiations on the European Union's proposed International Code of 
Conduct for Outer Space Activities. This is an effort to develop a 
pragmatic first set of guidelines for safe activities in space. If 
confirmed, I remain committed to continuing our support to evaluating 
proposed drafts of the Code and considering appropriate steps to 
establish rules of the road for space operations that are consistent 
with our national security interests and access to space.
                     operationally responsive space
    Question. Do you support the concept of operationally responsive 
small satellites and what do you see as the most promising 
opportunities for small satellites?
    Answer. I support resilience in space programs and we are 
continuing to review and support programs that best meet the needs of 
the Joint Force in future conflicts and given fiscal constraints. Given 
unlimited funding I would want to push further and faster on this 
program. Under the current environment we will need to be very 
selective in pursuing operationally responsive space, and should select 
only those that provide best value. The most promising concepts would 
be for rapid reinsertion of communications and surveillance capability 
in the wake of the initial stages of a conflict with a space-capable 
adversary.
    Question. Do you believe that smaller less complicated less 
expensive satellites can play a role in providing resiliency or 
redundancy for space systems?
    Answer. I support resilience in space programs and we are 
continuing to review and support programs that best meet the needs of 
the Joint Force in future conflicts, within fiscal constraints. Such 
programs could include smaller less complicated less expensive 
satellites, and it could also include adding payloads to other 
satellites.
                          prompt global strike
    Question. DOD is currently working on technologies that if 
successful could lead to the decision to develop and deploy 
conventional, non-nuclear, prompt global strike capability.
    Do you believe that a prompt global strike capability should be 
developed and deployed?
    Answer. Although a decision has not been made to deploy such a 
capability, I believe it would have potential utility in a variety of 
time-sensitive scenarios and would thus provide greater flexibility to 
the President for taking kinetic action if required. There are 
potential future circumstances that may require a capability to address 
high value, time sensitive and defended targets from ranges outside the 
current conventional technology. Therefore, we continue to look for 
affordable technology risk reduction and maturation of engineering 
concepts.
    Question. If your answer to the previous question is yes, what is 
your vision of the capability that should be developed for prompt 
global strike and the types of targets that would underpin the need to 
develop the capability?
    Answer. If a decision is made to develop and deploy a capability, 
it should have specific attributes. The capability should influence, 
dissuade, or defeat an adversary using conventional weapons to rapidly 
penetrate or circumvent access-denied areas. It could be useful in 
situations ranging from a rapid strike against a known terrorist 
leader, to hitting a rogue regime's mobile missile that is positioned 
for launch, to quickly interfering with the ability of an adversary to 
target one of our space assets. This is an example of how we are 
actually trying to constrain requirements so we don't end up with gold 
plated systems we can't afford. So while it should be both prompt and 
accurate, not requiring the capability to hit any target on the globe 
or hit hard and deeply buried targets should allow us to hold an 
adequate set of targets at risk at lower cost.
                            nuclear weapons
    Question. If confirmed, you will continue to be a member of the 
Nuclear Weapons Council, and work closely with the National Nuclear 
Security Administration and its Stockpile Stewardship Program.
    What, in your view, are the longer-term Stockpile Stewardship 
Program goals and what are the key elements that should be addressed 
from a DOD perspective?
    Answer. Congress established the Stockpile Stewardship Program with 
the aim of creating the computational capabilities and experimental 
tools needed to allow for the continued certification of the nuclear 
weapons stockpile as safe, secure, and reliable without the need for 
nuclear weapons explosive testing. The Secretaries of Defense and 
Energy are statutorily required to certify annually to Congress the 
safety, security, and reliability of the nuclear weapons stockpile.
    I believe these goals are appropriate and the program is effective; 
today's stockpile has been certified without a need for further nuclear 
testing. But the stockpile is aging. The Nuclear Weapons Council has 
developed a long-term plan that includes life extension programs to 
address aging concerns and enhance safety and security in a responsible 
manner. I believe the plan is executable and affordable. If confirmed, 
I will work across the interagency to ensure this plan is continuously 
updated and implemented.
    Question. In your view is the Stockpile Stewardship Program 
providing the tools to ensure the safety, reliability, and security of 
the nuclear weapons stockpile without testing and if not what tools are 
needed?
    Answer. I believe that the Stockpile Stewardship Program provides 
the requisite tools, as attested to by the national security lab 
directors in their annual assessment letters. These tools are critical 
as we life-extend our aging nuclear weapons. As we sustain the program, 
it is important these tools allow us to assess the full range of life 
extension programs to include: refurbishment of existing warheads, 
reuse of nuclear components from different warheads, and replacement of 
nuclear components.
    Question. Do you believe the administration's 1251 report sets 
forth an appropriate road map for the modernization of the nuclear 
weapons complex and the strategic delivery systems?
    Answer. The administration's section 1043 report, which has 
replaced the 1251 report, describes an appropriate roadmap for ensuring 
the future safety, security, and reliability of the nuclear stockpile 
and associated delivery platforms as well as for modernizing the 
nuclear weapons complex. The plan described in the 1043 report 
represents a strong commitment to the nuclear mission and is an 
important element of assurance that the U.S. deterrent remains strong. 
Additionally, this plan reflects the work of the Nuclear Weapons 
Council in developing an executable and affordable long-term plan for 
the Nuclear Enterprise.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. Funding of the 1043 report, which has replaced the 1251 
report, is a critical national security priority. The President's 
fiscal year 2014 budget request again includes a significant commitment 
from DOD to modernizing the nuclear weapon complex and supporting the 
long-term plan for extending the life of the weapons in our enduring 
stockpile. If confirmed, I will support the continued modernization and 
sustainment of our nuclear weapons delivery systems, stockpile, and 
infrastructure.
    Question. Prior to completing this modernization effort do you 
believe it would be prudent to consider reductions below New Strategic 
Arms Reduction Treaty (START) limits for either the deployed or 
nondeployed stockpile of nuclear weapons?
    Answer. U.S. objectives in future negotiations with Russia must 
consider multiple factors. It is my view that any reductions in the 
numbers of deployed and nondeployed nuclear weapons, either strategic 
or non-strategic, would need to be negotiated in a manner that 
strengthens deterrence of potential adversaries, maintains strategic 
stability with Russia and China, and assures our allies and partners. 
The timing and size of reductions, if any, would have to be closely 
coupled to the status of the modernization effort. If confirmed, I will 
support the Department's continuing assessment of the proper force size 
and capabilities required for an effective nuclear deterrent.
                 new start treaty and future reductions
    Question. The New START treaty has now entered into force. Under 
the terms of the treaty both sides have 7 years to come into compliance 
with the treaty.
    Do you believe that there is any opportunity to come into 
compliance in less than 7 years and what would be the conditions under 
which such compliance could be achieved?
    Answer. I believe the United States will be compliant by the 
February 2018 deadline although we have not made a final decision on 
the compliant force structure. Continued funding support from Congress 
is required to ensure the required activities of the department and the 
Services can be executed in a timely fashion for compliance. While 
achieving the limits on delivery vehicles will take nearly the entire 
compliance period, it may be possible to accelerate other elements of 
compliance, such as achieving the total deployed warhead limit of 1550 
up to a year early.
    Question. Do you believe that reductions in the total number of 
warheads, both Reserve and operationally deployed, is feasible prior to 
the expiration of the New START treaty and, if so, under what 
conditions?
    Answer. The treaty requires the Parties to ensure their strategic 
offensive forces are at or below the treaty's three central limits 7 
years after entry into force, which will occur on February 5, 2018. DOD 
is on schedule to comply with this obligation. The treaty expires in 
2021 and may be extended one time for 5 years if both the United States 
and Russia agree. Once we are in compliance with the central limits, it 
is technically feasible to further reduce the total number of warheads; 
however I would only recommend such reductions through negotiations 
with Russia.
                      nuclear triad modernization
    Question. Under the NPR, the administration has committed to begin 
modernization of each leg of the nuclear triad including development of 
new nuclear cruise missiles and extending the life of nuclear weapons. 
This process will continue over the next 30 years and longer, and will 
be very expensive.
    If confirmed, would you agree to review the requirements and cost 
of these initiatives, identify any opportunities for cost savings, and 
report back to the committee on a periodic basis if you identify such 
opportunities?
    Answer. Yes. This falls under my responsibilities as Vice Chairman, 
and I would be pleased, if confirmed, to report any opportunities for 
cost savings to the committee. I am currently paying close attention 
within the bounds of my authority to development of the Long Range 
Strike Bomber, and intend to do the same for the new SSBN. I serve as a 
member of the Nuclear Weapons Council and have contributed over the 
past 2 years at developing an affordable and executable strategy for 
the Nuclear Enterprise that includes life extension programs of nuclear 
weapons.
                  nuclear weapons employment strategy
    Question. President Obama recently issued new guidance on nuclear 
weapons employments strategy, consistent with the 2010 NPR.
    Do you support the President's new nuclear weapons employment 
guidance, and did you have an opportunity to provide input to the 
formulation of the new guidance?
    Answer. Yes. I support the President's new guidance. The Commander 
of STRATCOM and I and our staffs both participated in the analysis 
process. The two of us and General Dempsey participated in senior 
leader meetings during development of the guidance, where, based on the 
recommendations of the Joint Chiefs of Staff and the Commander of 
STRATCOM we provided our military advice to both the Secretary of 
Defense and the President.
    Question. Do you agree with the President's assessment that the 
United States can ensure its security, and the security of our allies 
and partners, and maintain a strong and credible strategic deterrent 
while safely pursuing up to a one-third reduction in deployed strategic 
nuclear weapons below the level established in the New START treaty? 
Please explain your views.
    Answer. Yes. I agree with this assessment. We can ensure our 
security and that of our allies and partners, and maintain a strong and 
credible strategic deterrent while pursuing further reductions beyond 
the New START treaty central limits. However, to be clear on this 
point, we must continue to adequately invest in the modernization of 
our nuclear infrastructure as long as nuclear weapons exist. Further, 
my advice is that further reductions in strategic nuclear weapons, 
beyond the New START treaty central limits, should occur as part of a 
negotiated position with Russia. Both General Dempsey and I have made 
this recommendation to the Secretary of Defense and to the President.
    Question. Please explain the risks and benefits of pursuing up to a 
one-third reduction in deployed nuclear weapons, including the 
implications of the vast disparity in tactical nuclear weapons between 
Russia and the United States.
    Answer. From our post-NPR analysis and close work with STRATCOM, 
the Navy, and the Air Force, I am confident we can ensure our security 
and that of our allies and partners, and maintain a strong and credible 
strategic deterrent while pursuing further reductions beyond the New 
START treaty central limits. However, to be very clear on this point, 
we must continue to adequately invest in the modernization of our 
nuclear infrastructure as long as nuclear weapons exist. Also, further 
reductions in strategic nuclear weapons, beyond the New START treaty 
central limits, should occur as part of a negotiated position with 
Russia in order to preserve strategic stability.
    As we negotiate further reductions with Russia, to include their 
larger number of non-strategic nuclear weapons, I'm encouraged by the 
administration's efforts to expand the scope of those reductions to 
include both strategic and non-strategic nuclear weapons that are both 
deployed and non-deployed. I believe this is a prudent approach that 
will maintain strategic stability with Russia and adequately meet the 
President's goals of reducing the role and number of nuclear weapons.
                           strategic systems
    Question. Over the next 5 years, DOD will begin to replace or begin 
studies to replace all of the strategic delivery systems. For the next 
15 plus years, DOD will also have to sustain the current strategic 
nuclear enterprise. This will be a very expensive undertaking.
    Do you have any concerns about the ability of the Department to 
afford the costs of nuclear systems modernization while meeting the 
rest of the DOD commitments?
    Answer. Yes. I am concerned that in the current budget environment 
will we be challenged to complete these modernization programs; thus, 
if confirmed, I will be paying very close attention to these programs 
as they develop and mature. The modernization of the strategic delivery 
systems and sustainment of the strategic nuclear enterprise is 
important to maintaining a safe, secure, and effective nuclear 
deterrent and is essential to deterring potential adversaries and 
assuring our allies. As with any funding choices in a fiscally 
constrained environment we will make decisions that will provide the 
best possible systems that are fiscally prudent while managing 
appropriate risk.
    Question. If confirmed will you review the modernization and 
replacement programs to ensure that they are cost effective?
    Answer. Yes. This falls under the responsibilities of Vice Chairman 
and I will continue to review the modernization and replacement 
programs to ensure that they are cost effective. I am already closely 
monitoring the Long Range Strike Bomber program and am satisfied that 
it is currently on track.
    Question. The Department will begin to issue guidance from the 
recent decision to revise the Nuclear Employment Strategy.
    Do you support this change in strategy?
    Answer. Yes. As Vice Chairman I had the opportunity to participate, 
along with the Commander, STRATCOM, in the discussion of the new 
strategy and to provide the inputs from the Joint Chiefs.
    Question. Will you keep Congress fully informed of additional 
guidance issued in response to this changed strategy?
    Answer. Yes. I have and will continue to fully inform Congress of 
additional guidance issued as a result of the change in the Nuclear 
Employment Strategy.
                          future technologies
    Question. During the Cold War, DOD pursued three key technologies 
to offset the numerical superiority of Soviet conventional forces: 
precision guided munitions, stealth technology, and satellite-based 
navigation. These three technologies have given U.S. forces 
unparalleled superiority until now. Our technology edge, however, in 
these areas is beginning to erode. Last year, DOD published seven 
strategic science and technology priorities.
    Do you believe these priorities are still relevant today?
    Answer. Yes. The Joint Staff participated in a DOD process in 2011 
to publish seven strategic science and technology priorities: 
electronic warfare/protection, data to decisions, engineered resilient 
systems, cyber science and technology, counter WMD, autonomy and human 
systems. These seven priorities are still relevant today in assuring 
our leadership and superiority in future conflicts.
    Question. If not, what additional technology priority areas should 
DOD be pursuing?
    Answer. These seven strategic areas remain fully relevant. We need 
to ensure that several key capabilities remain included within research 
and development in these areas, including greater cyber capability 
(with emphasis on network protection), fully protected precision 
navigation and timing that is semi-independent of the global 
positioning system constellation, high speed standoff weapons, and 
improved ability for intelligence, surveillance and reconnaissance 
through adverse weather and foliage.
                       ballistic missile defense
    Question. Do you agree that the current Ground-based Midcourse 
Defense system, with interceptors deployed in Alaska and California, 
provides defense of the entire United States--including the east 
coast--against missile threats from both North Korea and Iran, and do 
you have confidence in that system?
    Answer. Yes. I agree that the Ground-based Midcourse Defense 
system, supported by other elements of the ballistic missile defense 
architecture, provides defense of the United States from both a limited 
North Korean and Iranian long-range ballistic missile attack. I am 
confident in the system and say this even in light of the recent 
failure of a CE I missile test, of which we have now had three of four 
tests execute successfully. We still believe in this program and are 
determined that it succeed.
    Question. On March 15, 2013, Secretary of Defense Chuck Hagel 
announced a series of initiatives to improve our homeland ballistic 
missile defense capabilities, including the planned deployment of 14 
additional Ground-Based Interceptors (GBIs) in Alaska, to help stay 
ahead of the long-range missile threat from North Korea and Iran.
    Do you support the initiatives announced by Secretary Hagel, and do 
you believe they will help us stay ahead of the threat from North Korea 
and Iran?
    Answer. Yes. I support Secretary Hagel's initiatives and believe 
they will improve DOD's ability to counter future missile threats from 
Iran and North Korea, while maximizing the benefit from increasingly 
scarce taxpayer resources.
    Question. As indicated in the 2010 Ballistic Missile Defense 
Review, the administration is pursuing a ``fly-before-you-buy'' 
approach to missile defense, and will test systems in an operationally 
realistic manner to demonstrate they will work as intended before we 
deploy them. Since a GBI flight test failure with the Capability 
Enhancement-II kill vehicle in 2010, the Missile Defense Agency has 
been working to fix the problem and plans to conduct an intercept 
flight test in the spring of 2014 to demonstrate the fix.
    Do you agree with the ``fly-before-you-buy'' policy, and do you 
agree with Secretary Hagel that, before we deploy the additional GBIs, 
we need to test and demonstrate the fix so we demonstrate its 
capability and have confidence that it will work as intended?
    Answer. Yes. I agree with the ``fly-before-you-buy'' approach to 
test systems in an operationally realistic manner. It is essential to 
correct system issues before they affect the deployed forces.
    Question. Section 227 of the National Defense Authorization Act for 
Fiscal Year 2013 requires an Environmental Impact Statement (EIS) for 
possible future homeland missile defense sites in the United States, in 
case the President determines to proceed with such a deployment in the 
future. That EIS process is expected to be complete in early 2016.
    Do you agree that the EIS process should be completed prior to 
making any decision relative to possible deployment of an additional 
homeland missile defense site in the United States, including possibly 
on the east coast?
    Answer. I agree the Department must comply with the National 
Environmental Policy Act and conduct an EIS prior to the actual 
deployment of an additional missile defense site in the United States. 
It follows that it would be wise to obtain the results of the EIS 
before making any decisions.
    Question. Do you agree with the Director of the Missile Defense 
Agency and the Commander of the Joint Functional Component Command for 
Integrated Missile Defense that there is currently ``no validated 
military requirement to deploy an East Coast missile defense site''?
    Answer. Yes. Technically there is currently no validated military 
requirement to deploy an East Coast Missile Defense Site. However, that 
could change based on the trajectory of the threat from Iran, so we 
continuously analyze this assessment and will update it as required if 
we conclude differently.
    Question. Do you agree with their assessment that ``investment in 
Ballistic Missile Defense System discrimination and sensor capabilities 
would result in more cost-effective near-term improvements to homeland 
missile defense'' than deploying an east coast missile defense site?
    Answer. Yes. The MDA Director has made a compelling case that, 
along with reliability improvements to the interceptor, better sensor 
and discrimination capability would reduce the number of interceptors 
required to engage a given target. Thus, I believe this is the more 
cost effective approach and so agree with their assessment, which is 
consistent with the Department's analysis. However, if the threat 
achieves a trajectory that would indicate greatly increased capacity 
for producing ballistic missiles, it could be necessary to deploy an 
East Coast missile defense site, so we continue to assess the 
requirement.
    Question. Do you agree with the following statements regarding a 
potential East Coast missile defense site:

          General Jacoby (Commander, U.S. Northern Command (NORTHCOM)): 
        ``A third site, wherever the decision is to build a third site, 
        would give me better weapons access, increased GBI inventory 
        and allow us the battle space to more optimize our defense 
        against future threats from Iran and North Korea.''
          General Formica (Commander Space and Missile Defense 
        Command): ``Certainly, it brings increased capacity and 
        increased capability than we have at Fort Greely.''
          National Research Council: ``A GBI site located in 
        northeastern United States would be much more effective and 
        reliable and would allow considerably more battle space and 
        firing doctrine options.

    I fully agree with the first two statements. The question is 
whether or not a third site will be required given the trajectory of 
Iran's ability to produce quantities of ballistic missiles that can 
threaten the United States. I generally agree with the third statement, 
except a GBI site in the United States will not increase reliability--
only improved interceptors and sensors and other technical improvements 
will accomplish that objective.
    Question. Do you agree that Presidents Bush and Obama put in place 
policies that called for additional missile defense sites in Europe to 
better defend against threats to the United States from Iran?
    Answer. Yes.
    Question. Is this presidentially directed requirement still valid 
and if not, what has changed to permit the elimination of this 
requirement for a third interceptor site?
    Answer. We have subsequently determined that, while maintaining our 
commitment to the defense of our North Atlantic Treaty Organization 
(NATO) allies in Europe, it would be wiser and more fiscally prudent to 
invest in ballistic missile defense capability in terms of improved 
sensors and increased capacity at existing sites, while we evaluate the 
need for a third site in the United States. Engagement geometry and 
cost both favor this approach.
    Question. You have focused on improving the cost effectiveness and 
affordability of our major weapon systems, including missile defenses. 
Missile defense systems are limited in quantity primarily by their very 
high cost, which is exacerbated in the current financial environment 
that includes sequestration.
    What are your views on whether and how we can make missile defenses 
more cost-effective and affordable, and how we can manage our missile 
defense capabilities in a manner that best meets the needs of our 
combatant commanders?
    Answer. We remain mindful of the fact that we are on a negative 
economic glideslope regarding regional ballistic missile defense, in 
which the offense is able to use relatively cheap missiles that are 
countered by relatively expensive defensive systems. In this regard, we 
should apply greater emphasis on more economic passive defense measures 
such as dispersal and hardening in order to make the most of our more 
complex defensive assets. We should also emphasize interoperability on 
a joint and coalition basis in order to use the full spectrum of 
offensive and defensive capabilities in a comprehensive joint manner so 
as to provide the best defense with the most economical use of 
resources. Candidly, we have more work to do in this regard, but are 
making progress. I have favored encouraging our coalition partners, 
including those in the Arabian Gulf region and the Western Pacific, to 
invest in ballistic missile defense capability in order to free 
resources for our own ballistic missile defense needs. Finally, I also 
favored moving a Terminal High Altitude Area Defense battery to Guam, 
which not only provides defense for Guam but also yields an asset that 
is globally deployable operating day-to-day in an actual operational 
environment in which it defends U.S. territory.
                    u.s.-iraq strategic relationship
    Question. What is your assessment of the development of the U.S.-
Iraq strategic relationship since the withdrawal of U.S. military 
forces at the end of 2011 consistent with the 2008 U.S.-Iraq Security 
Agreement?
    Answer. The development of the U.S.-Iraq strategic relationship 
since 2011 has been a slow and deliberate process. The conflict in 
Syria, the Arab awakening, internal sectarian divisions, and Iran's 
ambitions for influence have dominated Iraq's focus. Sectarian violence 
and authoritarian moves by Prime Minister Maliki have also hindered 
some efforts. In many areas, U.S. and Iraqi strategic goals align, but 
in areas with less common ground such as Syria we continue to engage 
the Iraqis in order to transform them into true regional partners. 
Iraq's Foreign Military Sales (FMS) program offers a strong foundation 
to develop this strategic relationship, and the $14.3 billion in 
committed Iraqi national funds to FMS cases is a clear indication of 
the desire to continue to nurture our strategic relationship.
    Question. What areas, if any, do you see for the enhancement of the 
military-to-military relationship between Iraq and the United States?
    Answer. The main areas to enhance the U.S.-Iraq military-to-
military relationship are the FMS program, the International Military 
Education and Training (IMET), and bilateral or multilateral exercises. 
The FMS program provides an avenue for Iraqi Security Forces to train 
on U.S. equipment and, in part, inside the United States. The IMET 
program helps develop Iraqi leaders through intermediate and senior 
level development education and long-term relationships with 
counterparts in the U.S. military. Both programs offer the opportunity 
to continue and enhance our military-to-military relationship. The 
U.S.-Iraq Strategic Framework Agreement and Joint Military Cooperation 
Agreement help ensure our military-to-military relationship remains on 
track.
    Question. In your view, does the Office of Security Cooperation 
within the U.S. Embassy in Iraq have the right staffing levels and 
personnel to carry out its mission?
    Answer. Based on assessments from the Chief of the Office of 
Security Cooperation in Iraq (OSC-I) and the U.S. Ambassador, I believe 
we have sufficient personnel to execute a coherent strategy between the 
Department of State and DOD. With the transition of Office of Security 
Cooperation in Iraq training sites during calendar year 2013 and the 
continued transition to FMS funded training, the previous need for 
250(+) personnel in OSC-I has dissipated. I think we are on track to 
have the right number of personnel at the end of September 2013, using 
the glide path plan agreed upon by DOD, the U.S. Mission Iraq, and Main 
State. The Chief of OSC-I and the Ambassador will reassess the manning 
requirements once the last four sites transition later this year.
    Question. What safeguards can be used to ensure Iraq does not 
employ F-16s in a way that increases sectarian strife within Iraq?
    Answer. In addition to political influence based on our bilateral 
relationship, we would also retain the option of withholding F-16 
training, support equipment, spare parts, or munitions. Iraqi misuse of 
F-16 aircraft would also complicate and potentially jeopardize FMS, 
Foreign Military Financing (FMF), and Individual Military Education and 
Training--which provides a credible deterrent. However, this issue 
offers no easy solution, and it is a challenge we face to some degree 
when we sell weapons systems to any partner.
                   security situation in afghanistan
    Question. What is your assessment of the current security situation 
in Afghanistan?
    Answer. The security situation in Afghanistan continues to improve, 
and the ANSF is proving they are willing and capable of assuming the 
lead in security operations. U.S. and coalition forces, working side by 
side with our Afghan partners, have reversed the Taliban's momentum and 
pushed insurgents out of population centers. The ANSF and ISAF continue 
to deprive the insurgents of key safe havens, command and control 
nodes, and support zones. They are now less capable, less popular, and 
less of a threat to the Afghan Government than a year ago. Despite this 
degradation, safe havens in Afghanistan and sanctuaries in Pakistan 
continue to provide Taliban senior leadership some freedom of movement 
and freedom of action. Additionally, Afghan Taliban and all its 
subgroups, including the Haqqani Network, remain capable of conducting 
isolated high profile attacks that, as intended, capture 
disproportionate attention. However, sustained counterterrorism 
pressure continues to degrade this ability.
          transition of security responsibility in afghanistan
    Question. In February of this year, President Obama announced that 
by February 2014 U.S. troop levels in Afghanistan will be reduced to 
34,000. In June, the Afghan National Security Forces achieved 
Transition Milestone 2013, assuming the lead responsibility for 
security throughout Afghanistan.
    Do you support the President's decision to reduce U.S. troop levels 
in Afghanistan to 34,000 by February 2014? Why or why not?
    Answer. Yes. Transition Milestone 2013 represents a significant 
shift for our mission in Afghanistan. Over the past 11 years, the 
United States and our partners have led combat operations. Now the 
Afghans are taking the lead for their own security. ISAF's primary 
focus has shifted from directly fighting the insurgency to supporting 
the Afghan National Security Forces (ANSF). We match troop levels to 
the mission and our new mission requires fewer troops on the ground. 
The President's decision to drawdown U.S. forces was made based on the 
ISAF Commander's input, the real and tangible progress of the ISAF 
military campaign, and a comprehensive assessment of conditions on the 
ground, including an increasingly capable and confident ANSF.
    Question. What is your understanding regarding the pace of those 
reductions in U.S. forces?
    Answer. Troop reductions are based on our mission, ANSF capability 
and conditions on the ground. We are on path to meet our objective of 
34,000 troops by February 2014, to include troops, bases, and 
equipment. It is important for the ISAF Commander to have the 
flexibility to meet his mission and sustain the right forces through 
this fighting season and he has the latitude to manage the glideslope 
from now to the end of the year as we settle into a supporting role.
    Question. Do you support the June transition to the Afghan security 
forces of lead responsibility for security throughout Afghanistan?
    Answer. I support the transition of responsibility for security to 
a capable and confident ANSF. ANSF improvement has enabled us to 
achieve transition Milestone 2013. There are occasional setbacks and 
deficiencies, but the ANSF continues to demonstrate its ability to 
defeat the Taliban and provide security to the Afghan people.
    Question. In your view, is the campaign on track for the completion 
of the ISAF mission and the assumption by Afghan security forces of 
full responsibility for the country's security by December 2014?
    Answer. Yes. The ANSF are at the forefront of the fight and are now 
responsible for maintaining and expanding security in the face of the 
insurgency. In late 2009, a concerted effort to grow the ANSF was 
initiated with the goal of generating and fielding trained and equipped 
Afghan combat elements and getting them into the fight. Unit partnering 
between Afghan and ISAF forces--enabled by the U.S. troop surge ordered 
by President Obama--provided the ANSF the space to develop combat 
capabilities and leadership skills from the tactical level on up. 
Moving into the 2013 fighting season, the insurgency now confronts a 
combined ANSF and Afghanistan Local Police (ALP) force of nearly 
350,000 personnel who have secured over 87 percent of Afghanistan's 
population, and are leading 93 percent of all conventional operations. 
The only conventional operations they are not leading are a small 
number of unilateral conventional operations including security patrols 
around ISAF bases, route clearance patrols, and retrograde operations. 
These forces are operating with growing confidence, improved 
leadership, warfighting capability, and a vision for the future. They 
are a source of security, confidence, and pride for the Afghan people--
factors the insurgents must consider as their influence and 
effectiveness in Afghanistan wanes.
              building the afghan national security forces
    Question. In your view, is the current end strength level of 
352,000 for the ANSF the appropriate level to provide security and 
stability in Afghanistan beyond 2014?
    Answer. In my view, the 352,000 ANSF force level should continue 
beyond 2014. The extension of the ANSF ``surge'' force has been 
instrumental in breaking Taliban momentum. This force structure also 
enables our own troop reductions and retrograde operations. It is too 
early to assess the duration of this surge, but at a minimum, this 
extension would likely be necessary for at least 2 years following the 
end of the ISAF mission.
    Question. What in your view are the greatest challenges to 
completing efforts to build the capacity of the ANSF to assume 
responsibility for Afghanistan's security?
    Answer. Although not insurmountable, the main challenges we face in 
building the capacity of the ANSF are attrition, leadership, limited 
literacy and low technical competence. Low literacy rates, in 
particular, hamper the ANSF ability to meet goals in more technical 
areas. This is of greatest concern in the Afghan Air Force. Under 
current conditions, the creation of a fully functional Afghan Air Force 
is still 4 to 5 years off. ANSF has made great strides and is showing 
significant improvement, but these issues continue to undermine 
positive recruiting, training, professionalization, and competency 
goals. These are not problems that can be solved in the short term, but 
ISAF is continuing to work with the MoI and the MoD to address training 
the force in areas of professionalism, leadership, literacy, and 
technical competency. Over time, and with our assistance, we are 
confident that the ANSF address these challenges.
    Question. A recent audit report by the Special Inspector General 
for Afghanistan Reconstruction (SIGAR) raised concerns about DOD plans 
to purchase PC-12 aircraft and Mi-17 helicopters for the Afghan Special 
Mission Wing and recommended suspending the contracts for these 
purchases. The Department of Defense and the North Atlantic Treaty 
Organization Training Mission-Afghanistan/Combined Security Transition 
Command-Afghanistan did not concur with the SIGAR's recommendation on 
contract suspension.
    What is your assessment of current plans to equip the Afghan 
Special Mission Wing with PC-12 aircraft and Mi-17 helicopters?
    Answer. Our strategy in Afghanistan includes reducing the reliance 
on U.S. enablers by building the capability of the ANSF. Developing the 
Afghan Air Force and the SMW is a key element in reducing our 
requirement to provide aviation support to the ANSF. The fact is that 
Afghans are better able to fly and maintain these systems, which will 
be a necessary capability for the ANSF to prevail over the Taliban.
    Question. What is your assessment of the impact to Afghanistan 
counterterrorism efforts if Mi-17 helicopters are not acquired?
    Answer. It is critical for us to support a robust helicopter 
capability within the ANSF. Analysis shows that the Mi-17 is the best 
all-around helicopter for them. The ANSF is familiar with the Mi-17, 
which is well suited for transporting combat-ready Afghan troops 
throughout remote, high, hot, and rugged terrain with minimal ground 
support. It is easier for the ANSF to maintain this helicopter than 
more sophisticated aircraft. While it is unfortunate that the Mi-17 is 
the optimal vertical lift solution for the ANSF, we view it as critical 
for successful transition of security to the ANSF.
    Question. Do you support the SIGAR recommendation to suspend the 
contracts to acquire these aircraft and helicopters for the Special 
Mission Wing? Why or why not?
    Answer. We support the SIGAR audit in general but not the specific 
recommendation to suspend contracts for the Special Mission Wing. We, 
to include COMISAF, believe that we can overcome the difficulties of 
maintenance, training and personnel that were identified in the audit. 
It is in both Afghan and U.S. interest that the Afghans develop their 
own counterterrorism and counternarcotics capability on a timeline that 
supports our transition. These aircraft are essential for these tasks. 
That said, we acknowledge the maintenance and operational challenges 
that SIGAR identifies. We will work through these in concert with 
COMISAF. We cannot afford, however, the sequential approach that SIGAR 
recommends. Training, maintenance, personnel and aircraft procurement 
will continue apace with governing management to ensure coordinated 
fielding of ready capability. Notably in this context, the Mi-17 is the 
best aircraft to meet the SIGAR identified challenges. The Afghans have 
over 30 years of experience with the Mi-17 to include current 
operations. Any other aircraft would substantially worsen the 
challenges reported in the audit and set back fielded capability by 
years.
            enduring strategic partnership with afghanistan
    Question. Do you support maintaining an enduring strategic 
partnership between the United States and Afghanistan beyond 2014?
    Answer. Yes. We remain committed to an enduring strategic 
partnership with Afghanistan. Such a partnership is in our national 
interest, and critical to our objectives of disrupting, dismantling, 
and defeating al Qaeda and preventing its return to Afghanistan, and 
denying the Taliban the ability to overthrow the Afghan Government.
    Question. How would you describe the main U.S. strategic interests 
regarding an enduring relationship with Afghanistan and in that region?
    Answer. We are committed to a long-term partnership with 
Afghanistan. It is in our national interest to ensure that Afghanistan 
never again becomes a safe haven for al Qaeda or its affiliates that 
pose a threat to our Homeland.
                   special operations in afghanistan
    Question. Special Operations Forces depend on general purpose 
forces for many enabling capabilities, including intelligence, 
surveillance and reconnaissance (ISR); logistics; and medical 
evacuation. Admiral McRaven, Commander of U.S. Special Operations 
Command, has said ``I have no doubt that special operations will be the 
last to leave Afghanistan'' and has predicted that the requirement for 
Special Operations Forces may increase as general purpose forces 
continue to be drawn down.
    If confirmed, how would you ensure adequate enabling capabilities 
for Special Operations Forces as general purpose forces continue to 
draw down in Afghanistan?
    Answer. If confirmed, I would work to ensure adequate enabling 
capabilities to support the SOF mission by working collaboratively with 
CENTCOM and NATO to determine requirements and fill them to the maximum 
extent possible. These enabling capabilities would be tailored to 
support our post-2014 mission and would be based on force levels that 
have yet to be decided.
    Question. In April 2012, the U.S. and Afghanistan signed a 
memorandum of understanding on the ``Afghanization'' of direct action 
counterterrorism missions in Afghanistan--reflecting the shared 
intention of having Afghan security forces in the lead in the conduct 
of such operations with U.S. forces in a support role.
    What is the status of efforts to put Afghan Special Operations 
Forces in the lead for such operations and why do you believe such a 
transition is important?
    Answer. The ANSF SOF continue to make significant progress in 
operational effectiveness, and their independence, capacity, and 
competence. One hundred percent of ANA Special Operation Forces 
missions are Afghan led, and approximately 60 percent of Provincial 
Response Company police missions are Afghan led. With our mentorship, 
their ability to execute these types of missions continues to grow in 
sophistication. This capability is critical for GIRoA to demonstrate 
its ability to lead security operations.
    Question. The Village Stability Operations (VSO) and Afghan Local 
Police (ALP) programs--both U.S. Special Operations missions--have been 
consistently praised by U.S. military leaders as critical elements of 
the counterinsurgency strategy in Afghanistan.
    What are your views on the value of these programs and do you 
believe they should be part of the long-term strategy in Afghanistan 
(i.e. post-2014)?
    Answer. These programs represent a visible expression of local 
security to many Afghans, particularly those in remote and isolated 
communities. GIRoA has identified VSO/ALP as a necessary pillar of its 
own long-term strategy. These programs provide a vehicle for GIRoA to 
extend governance to the local level.
                                pakistan
    Question. What is your assessment of the military-to-military 
relationship between the United States and Pakistan?
    Answer. Our military-to-military relationship has improved in the 
past year, emerging from the crisis that occurred subsequent to the 
cross-border incident in late 2011 and subsequent closure of the ground 
lines of communication through Pakistan used for our logistics in 
Afghanistan. While Pakistan defines its interests in ways that overlap 
but are not identical to ours, our military-to-military ties allow us 
to engage Pakistan in areas of shared concern such as maintaining 
regional stability, curbing violent extremism, and countering the 
threat of improvised explosive devices. The Chairman, the Central 
Command Commander, and the ISAF Commander have frequent interaction 
with General Kayani, and the Office of the Defense Representative in 
Pakistan has close ties with counterparts. Pakistani counterinsurgency 
operations against extremist organizations have been helpful to our 
efforts in the region. Security assistance, Coalition Support Fund 
reimbursements, and cross-border coordination with ISAF and Afghan 
forces have helped enable these operations. The Pakistani military has 
also hosted several U.S. delegations this year to discuss the IED 
problem and other issues.
    Question. Should that military-to-military relationship be 
enhanced, and if so, what steps would you recommend for doing so, if 
confirmed?
    Answer. Military-to-military ties with Pakistan are an important 
aspect of the broader bilateral relationship. A key moment in this 
relationship will occur when General Kayani transitions out of his job 
this fall. The Office of the Defense Representative in Pakistan plays 
an important role in building and sustaining military-military ties 
with security assistance programs. As Pakistan's democratic 
consolidation progresses, we must ensure we maintain our military-to-
military ties. Security cooperation cannot succeed without the buy-in 
of Pakistani military leadership and continued support of the U.S. 
Congress. I meet with Pakistani representatives when they are in 
Washington, but normally leave the central personal interactions to the 
Chairman, the Central Command Commander, and the ISAF Commander in 
order to keep under control the number of different voices the 
Pakistani leadership hears. However, if confirmed, I will focus on 
ensuring our relations remain smooth and stable during the transition 
to General Kayani's successor, along with ways in which we can work 
productively with Pakistan to enhance security along the shared border 
with Afghanistan and stability in both Afghanistan and Pakistan.
                                  iran
    Question. Iran continues to expand its nuclear program and has 
failed to provide full and open access to all aspects of its current 
and historic nuclear program to the International Atomic Energy Agency.
    What is your assessment of the military and political threat posed 
by Iran?
    Answer. Iran's persistent, though often clumsy, efforts to 
undermine our partners and spread its influence pose a significant 
potential threat to the United States, our allies and partners, and our 
regional and global interests. Countering Iran's destabilizing hostile 
behavior requires addressing multiple threat vectors, including 
conventional military, unconventional state-sponsored terrorism, and 
nuclear challenges.

        <bullet> Conventional Military Challenges. Iran is actively 
        investing in the development of a range of conventional 
        capabilities, including air, missile, and naval assets that 
        have generated regional anxieties and could threaten our 
        interests and personnel in the region. Iran continues to 
        publicly threaten to use naval and missile forces to close the 
        Strait of Hormuz or target U.S. interests and regional partners 
        in response to increasing sanctions or an attack on the 
        country.
        <bullet> Unconventional Challenges. Iran is also one of the 
        main State-sponsors of terrorism, proxy and surrogate groups, 
        and unconventional attacks, including against U.S. personnel 
        and interests. Over the past 3 decades, Iran has methodically 
        cultivated a network of terrorist and militant groups capable 
        of targeting regional and global targets. Iran also continues 
        to provide arms, funding, and paramilitary training to 
        extremist groups.
        <bullet> Nuclear Challenges. Iran continues to pursue an 
        illicit nuclear program that threatens to provoke a regional 
        arms race, and undermine the global non-proliferation regime. 
        Iran is proceeding with uranium enrichment and heavy-water 
        nuclear reactor activities in violation of multiple United 
        Nations Security Council resolutions, and Iran continues to 
        develop ballistic missiles that could be adapted to deliver 
        nuclear weapons.

    Iran's security threats toward Israel will persist, and there 
remains a high potential that Iran will make a serious miscalculation 
of U.S. resolve leading to rapid escalation of conflict. Politically, 
Iran will seek to use its capabilities to enable greater influence in 
the region, particularly with our Gulf Cooperation Council partners and 
in the border nations of Iraq, Afghanistan, and Pakistan--where U.S. 
presence has decreased in recent years.
    Question. What is your assessment of U.S. policy with respect to 
Iran?
    Answer. I fully support the U.S. policy of preventing Iran from 
acquiring nuclear weapons. The United States is also pursuing a multi-
vector strategy that I have labeled a strategic progression. This 
strategy initially began with outreach which, while unsuccessful, 
established the foundation required for pressuring Iran under the most 
intrusive sanctions regime in history. This pressure also includes 
diplomatic isolation through U.N. Security Council Resolutions, 
diplomatic engagement through the P5+1, and military pressure through 
contingency preparations and exercises. Should Iran fail to meet its 
obligations regarding cessation of nuclear weapons development, we have 
additional options to coerce Iran into doing so using military force 
that are available to the President. Meanwhile, we continue to sustain 
pressure on Iran's other nefarious activity, and we are reassuring 
partners through our presence in the Arabian Gulf region and through 
various security commitments.
    Question. What more do you believe the United States and the 
international community can and should do to dissuade Iran from 
pursuing nuclear weapons?
    Answer. We should maintain the current strategic progression, which 
is currently in what I would describe as the ``pressure'' stage. Should 
pressure not work and Iran continue to progress, it may become 
necessary to further increase pressure or transition to a more coercive 
stage. That is a policy question best addressed by President's national 
security team, in which the Chairman and I participate. If confirmed, I 
will work to ensure we are well prepared to pursue all military options 
necessary to achieve this end.
    Question. In your view, what are the risks associated with reducing 
U.S. presence in the Middle East with respect to the threat posed by 
Iran?
    Answer. A precipitous reduction of U.S. force presence in the 
Middle East would negatively impact our ability to deter aggression and 
assure our partners. We still maintain a large number of forces 
deployed to the region, and have managed minor reductions--such as a 
recent restoral of aircraft carrier presence to more traditional 
levels--by messaging our continued resolve, through our known ability 
to restore presence, and through our global strike capability. I would 
add that our ability to respond to an Iranian provocation is impacted 
more by the decline in readiness associated with budget reductions 
under the sequester mechanism than by a reduction in presence.
    Question. In your view, what has been the effect of sanctions 
against Iran--how effective have they been and should additional 
unilateral or multilateral sanctions be levied against Iran?
    Answer. Because of these sanctions, Iran's financial, trade, and 
economic outlook has deteriorated significantly. Inflation and 
unemployment are also growing. International sanctions have hindered 
Iran's weapons procurement efforts and driven up the costs of obtaining 
necessary components for its military. Sanctions also appear to have 
slowed Iran's progress on its nuclear program, making it increasingly 
difficult for Iran to import needed materials or skills. That said, 
should Iran maintain its defiance of the international community and 
continue to develop a nuclear weapon, it may be necessary to step up 
sanctions even further.
    Question. In your view, what role should DOD play in countering 
Iran's support of international terrorism?
    Answer. Iranian support for proxy terrorist activities around the 
world constitutes a serious threat not only for the stability of our 
partners and allies who are directly impacted by these activities, but 
also for U.S. interests. DOD counters Iran's destabilizing activities 
in multiple ways. The Department supports diplomatic and intelligence 
efforts that inhibit activities of Iranian proxy and terrorist groups. 
Additionally, we use DOD presence in the region to deter and, when 
directed by the President, disrupt Iranian aggression. Further, we use 
our strong security cooperation relationships with regional and global 
partners to counter Iran's destabilizing activities. We will continue 
to work with the intelligence community and our many regional partners 
to maintain awareness of--and where feasible disrupt--Iran's asymmetric 
efforts.
    Question. Do you agree with President Obama that all options, 
including military options, should remain on the table with respect to 
Iran?
    Answer. Yes. We keep all options credibly on the table to inhibit 
Iranian aggression and nuclear ambitions by maintaining a robust 
regional presence, conducting prudent planning for all contingencies, 
and exercising independently and with our many partners.
    Question. What is your assessment of whether sanctions as currently 
enacted will stop Iran from acquiring a nuclear weapons capability?
    Answer. The Departments of State and Treasury have put in place 
wide-ranging and unprecedented international sanctions. I believe they 
are having a dramatic effect on the Iranian economy and should 
continue. They appear to have made some difference, though not yet a 
decisive difference, in the Supreme Leader's calculations. Thus, it 
remains to be seen whether these sanctions will alter Iran's course. We 
have plans in place to take additional action if required.
                                 syria
    Question. What is your assessment of the situation in Syria and its 
impact on the region?
    Answer. The crisis in Syria is a dynamic, complex and unlimited 
sectarian struggle between two sides who believe that to lose means the 
most severe end state. It is manifesting deep ethno-sectarian divisions 
across the region. The conflict risks the spread of chemical weapons 
and the emergence of a terrorist group that could threaten U.S. 
interests, and it has already cost the lives of over 100,000 Syrian 
people and the displacement of many more. Its regional impacts extend 
in varying degrees to Israel, Turkey, Jordan, Lebanon, and Iraq. 
Competition between and among states with regional interests continues 
to fuel the violence from afar, deepening Sunni-Shia and Sunni-Sunni 
tensions within Syria and beyond.
    We continue to provide military options to the President and to 
work with our interagency and regional partners to address the 
destabilizing effects of this crisis.
    Question. In your view, what is the most appropriate role for the 
United States in assisting regional friends and allies respond to the 
situation in Syria?
    Answer. The United States is pursuing a diplomatic solution in 
Syria with the goal of a transitional government with full executive 
power by mutual consent, and is providing considerable humanitarian and 
non-lethal support to the forces opposing the Syrian Government. The 
U.S. military is providing support to the surrounding countries through 
multilateral planning efforts, exercises, and some humanitarian 
assistance. We are continuously engaged with key regional partners such 
as Jordan, Lebanon, Turkey, and Iraq to provide assistance, technical 
knowledge, and military contingency planning. We have placed a number 
of F-16s and a Patriot battery in Jordan to demonstrate our commitment 
to that nation's security.
    Question. In your view, what--if any--role should the U.S. military 
play with respect to the situation in Syria?
    Answer. There is a broad spectrum of potential roles the U.S. 
military could play in Syria. These include helping provide 
humanitarian assistance, providing security assistance to Syria's 
neighbors, and providing non-lethal assistance to the opposition, 
including essential provisions such as food and medical supplies--all 
of which we are currently doing. The military could support an 
international effort to dismantle Syria's chemical weapons program in a 
permissive post-Assad environment. Although there are legal hurdles 
involved, additional U.S. military involvement could include training, 
advising and assisting opposition forces from outside Syria--forces 
carefully selected to minimize the chances that they would abuse the 
power we would provide. At an unclassified level, the U.S. military 
could also conduct a broad spectrum of kinetic options in Syria, 
ranging from different types of limited kinetic strikes designed to 
achieve a variety of objectives, to different varieties of no-fly zone 
or humanitarian safe zones. All of these options have been presented to 
the National Security Staff for consideration by the Principals and the 
President. Each comes with costs, risks, legal hurdles, and opportunity 
costs. Notably, given the degradation of U.S. Air Force readiness due 
to the effects of the fiscal year 2013 sequester, the higher levels of 
kinetic response would impose severe opportunity costs for potential 
contingencies elsewhere in the world.
    Question. In your view, what role--if any--are Iran, Russia, and 
Hezbollah playing in the current conflict in Syria?
    Answer. Russia, Iran, and Hezbollah continue to provide support to 
the Assad regime.
    Russia continues to provide arms, diplomatic and financial support 
to the Syrian regime. I defer to the intelligence community for 
specifics. Though it has recently held off on providing the S-300 
surface to air missile system, it could reverse this decision at any 
time. Russia's continued support for the regime has cost it 
considerable credibility in the region.
    Meanwhile, in order to support its client Hezbollah and sustain a 
hostile state on Israel's border, Iran provides the Assad regime with 
financial support, weapons, training, and advice regarding how to 
conduct the fight against the opposition forces.
    Hezbollah has provided advice and has injected a considerable 
number of forces directly into the fight, providing a decisive 
capability in some cases, though sustaining serious losses. Again, I 
would defer to the intelligence community for specifics.
    Question. In your view, what are the prospects of a negotiated 
solution in Syria?
    Answer. Clearly, a negotiated settlement is the preferred path to 
achieving our policy objectives. However, its prospects are diminished 
by the sectarian and ``total war'' character of the conflict. The 
intelligence community has indicated that this type of conflict only is 
resolved through negotiation when both sides are exhausted or the 
dominant side is forced to the table by a major patron state. The 
former will likely take many years, and the likelihood of latter 
occurring is questionable. Greatly complicating the likelihood of a 
negotiated settlement is the factious nature of the opposition forces--
despite intense pressure by its international patrons to coalesce 
politically, the opposition is still not united.
    Question. In your view, is the momentum currently on the side of 
the Assad regime or the forces fighting to overthrow Syria?
    Answer. The Assad regime--with direct support from Hezbollah, and 
weapons provided by Iran and Russia--has recently regained control of 
several areas previously in dispute or under the control of opposition 
forces. Momentum can ebb back and forth in these types of conflict, and 
it would appear to have shifted towards the regime in that part of the 
country.
    Question. Are there asymmetric options that bypass Syria's 
integrated air defense system rather than kinetically neutralize it, 
such as standoff weapons and/or stealth, and what is your assessment of 
those options from a military perspective?
    Answer. We have a range of military options. These are best 
discussed in a classified setting.
                                al qaeda
    Question. What is your assessment of the threat posed by al Qaeda 
affiliates to the U.S. Homeland, U.S. interests overseas, and western 
interests more broadly? Which affiliates are of most concern?
    Answer. A decade of relentless counterterrorism pressure has 
degraded al Qaeda's ability to operate. They are less capable of 
staging sophisticated, complex attacks against the west. Despite these 
setbacks, al Qaeda retains its intent to plan and conduct terrorist 
attacks against the west. Al Qaeda in the Arabian Peninsula (AQAP) 
remains the AQ associated group most likely and capable of attempting 
an attack on the United States in the near-term. Other groups, such as 
al Qaeda in Iraq, al Shabaab, al Qaeda in the Lands of the Islamic 
Maghreb, and others are more preoccupied with struggles internal to the 
areas in which they operate. However, to varying degrees they still 
have the intent and capability of conducting an attack on the United 
States or its people.
            the 2001 authorization for use of military force
    Question. What is your understanding of the scope and duration of 
the 2001 Authorization for Use of Military Force (AUMF)?
    Answer. The United States is in an armed conflict against al Qaeda 
and its associated forces. An associated force is defined as a group 
that: (1) is an organized, armed group that has entered the fight 
alongside al Qaeda, and (2) is a co-belligerent with al Qaeda in 
hostilities against the United States or its coalition partners. These 
are the same terrorist threats that perpetrated the attacks on U.S. 
soil on September 11, 2001, and the AUMF still serves as the legal 
basis under U.S. domestic law to employ military force against these 
threats.
    Question. What factors govern DOD determinations as to where the 
use of force is authorized, and against whom, pursuant to the AUMF?
    Answer. In May 2013, the President promulgated Presidential Policy 
Guidance (PPG) governing direct action against terrorist targets 
located outside the United States and areas of active hostilities. This 
establishes procedures for DOD to conduct these types of military 
operations. The PPG and its derivative operational plans formalize DOD 
standards, policies, and determinations concerning where, how, and 
against whom military force may be utilized outside the United States 
and areas of active hostilities. DOD meticulously follows the 
procedures of the PPG to ensure we make well-informed and ethical/legal 
decisions based on the most up-to-date intelligence and the expertise 
of our national security professionals. Senior commanders and their 
legal advisors carefully review all operations for compliance with U.S. 
and international law before a decision is rendered by the Secretary of 
Defense or the President.
    Question. Are you satisfied that current legal authorities, 
including the AUMF, enable the Department to carry out counterterrorism 
operations and activities at the level that you believe to be necessary 
and appropriate?
    Answer. The AUMF in its current form provides necessary and 
sufficient authorities to counter al Qaeda and its associated forces. 
If a terrorist threat emerges that does not fit within the AUMF, the 
DOD would consult with Congress and the executive branch on the 
question of authorities.
              yemen and al qaeda in the arabian peninsula
    Question. What is your assessment of the current U.S. strategy in 
Yemen and what is your understanding of the role of DOD within that 
strategy?
    Answer. Our overall engagement strategy with Yemen is solid. It 
combines diplomatic, economic, and security initiatives to improve 
stability and security and assist president Hadi during this period of 
transition. Building an enduring partnership with the Yemeni military 
is key to addressing critical security threats, including the campaign 
against AQAP. The security situation in Yemen remains fragile and we 
must continue our partnership and support.
    Question. Given the continuing political instability and slow 
progress of reforms to the military in Yemen, what are your views on 
the United States continuing to provide security assistance--most 
significantly DOD section 1206 funding--to Yemeni counterterrorism 
forces?
    Answer. A stable Yemen that is free of violent extremist remains in 
our best interest. AQAP elements seek to exploit instability and pose a 
legitimate threat to the United States, our assets in the region, and 
the transitional Yemeni Government. While progress has been slow, 
President Hadi and the military are taking steady steps to reform and 
restructure the military as part of the overall political transition 
process. They continue to engage the United States for support and 
advice on the military reorganization. The 1206 funds remain critical 
to building the capacity of Yemeni counter terrorism forces to disrupt 
and degrade the AQAP operational space.
                         somalia and al shabaab
    Question. What is your assessment of the threat posed by al 
Shabaab?
    Answer. While al Shabaab remains on the defensive, it has 
demonstrated a continued willingness and ability to conduct complex 
attacks against western interests and Somali Government targets in 
Mogadishu. This trend will likely continue throughout the rest of 2013, 
despite increasingly public disputes amongst al Shabaab senior 
officials and the efforts by the Somali Government, the African Union 
Mission in Somalia, and Ethiopian National Defense Forces to maintain 
pressure on the group.
    Question. In your view, does al Shabaab pose a threat to the United 
States and/or western interests outside of its immediate operational 
area?
    Answer. Al Shabaab does pose a threat to allied interests in East 
Africa, but it does not pose a direct threat to the Homeland or Europe 
at present. Al Shabaab merged with al Qaeda in February 2012 and shares 
al Qaeda's global jihadist objectives. However, the group continues to 
focus its efforts on defending territory in Somalia against the 
coalition of the Somali Government, the African Union Mission in 
Somalia, and Ethiopian military forces--as well as conducting attacks 
in East Africa.
    Question. Should the United States establish military-to-military 
relations and consider providing assistance to the Somali national 
military forces?
    Answer. If I am confirmed, I will work to ensure we are prepared to 
establish military-to-military relations with the new Somali National 
Army in support of the State Department efforts to recognize and 
strengthen the Somalia Federal Government. Meanwhile, we plan to 
continue assistance to our partner nations in the African Union Mission 
in Somalia (AMISOM) and explore ways to assist the Somali National 
Army. Somali stability in the near-term depends on AMISOM. Long-term, 
their security would be strengthened by a professional and accountable 
Somali National Army.
                    al qaeda in the islamic maghreb
    Question. What is your assessment of the threat posed by al Qaeda 
in the Islamic Maghreb (AQIM)?
    Answer. Al Qaeda in the Lands of the Islamic Maghreb (AQIM) and its 
allies have proven resilient despite the French-led military 
intervention in Mali. They are exploiting the Tuareg rebellion in 
northern Mali for safety. Although these groups no longer control key 
strategic towns, they retain the capability to launch sporadic attacks 
within Mali and neighboring countries, expand their safehaven, and 
attract recruits in pursuit of a hardline Islamic state based on al 
Qaeda ideology. AQIM will likely continue to bolster its ties to al 
Qaeda-associated terrorist groups throughout the region, such as Boko 
Haram in Nigeria, in order to influence and support attack planning. 
AQIM will continue to pose a local and regional threat into 2014, as 
North African Governments struggle to disrupt AQIM movement across 
expansive, porous borders.
    Question. In your view, does AQIM pose a threat to the United 
States and/or western interests outside of its immediate operational 
area? What capacity has AQIM demonstrated to plan and carry out actions 
threatening U.S. interests?
    Answer. In my view, the U.S. Homeland is not significantly 
threatened by AQIM. We see no indications the group places a priority 
on attacks outside North Africa and the Sahel, at least in the near 
term. However, the group remains a credible threat to U.S. and Western 
interests within North and West Africa, where it has conducted or 
attempted attacks in several countries (i.e. Mali, Niger, Algeria, 
Mauritania), and possibly in Europe. AQIM will likely continue to 
bolster its ties to al Qaeda-associated terrorist groups throughout the 
region, such as Boko Haram in Nigeria, in order to influence and 
support attack planning.
    Question. In your view, what has been the impact of the recent 
expansion of AQIM's area of operations in northern Mali on the group's 
capacities and aims?
    Answer. The expansion of al Qaeda in the Lands of the Islamic 
Maghreb (AQIM) in Mali between early 2012 and January 2013 increased 
the group's capacity as it collaborated with splinter groups al-Tawhid 
wa al-Jihad in West Africa, al-Mulathamun battalion, and Tuareg rebel 
group Ansar al-Din to enlarge its area of operations to several cities 
in northern Mali and enforce Sharia law. Although the group expanded in 
size, this growth has not changed the group's regionally-focused aim of 
establishing Sharia throughout North Africa. Following heavy losses in 
the subsequent French-led intervention, AQIM largely retreated to its 
traditional safehaven in the Tigharghar mountains, where it continues 
to regroup and remains capable of conducting attacks in the region.
                          combating terrorism
    Question. The administration recently released its National 
Strategy for Counterterrorism. This strategy highlights the need to 
maintain pressure on al Qaeda's core while building the capacity of 
partners to confront mutual threats. The strategy also underscores the 
need to augment efforts to counter threats from al Qaeda-linked threats 
``that continue to emerge from beyond its core safe haven in South 
Asia.''
    How do you view the DOD's role under the new National Strategy for 
Counterterrorism?
    Answer. DOD's role is one element of a comprehensive government 
approach that integrates our unique capabilities with those of our 
interagency partners and allies. In support of our strategic goals to 
combat al Qaeda-linked threats in South Asia and beyond, DOD is 
building partner capacity by training, advising, and assisting 
partnered forces to confront mutual threats. DOD will also continue to 
conduct lethal action against terrorist networks within rigorous 
guidelines, accountability methods, and standards.
    Question. What is your understanding of the impact of the 
Presidential Policy Guidance on Counterterrorism on DOD's role within 
the U.S. Government's counterterrorism strategy? Will DOD see its role 
increase or decrease? Will DOD require any new authorities or any 
increased capabilities or capacities?
    Answer. I feel our current authorities are sufficient to play our 
part in defending the Nation against existing terrorist threats. 
Counterterrorism is a deeply interagency effort that includes 
intelligence, law enforcement and defense capabilities, and our success 
stems in large part from the exceptional cooperation in this regard 
that has developed over the years. It remains to be seen, but it is 
possible the DOD role could increase under the PPD. The recently signed 
Presidential Policy Guidance on Counterterrorism is a codification of 
policies and procedures that have been applied for some time. The PPG 
and its derivative operational plans formalize the standards, policies, 
and determinations of DOD concerning where, how, and against whom 
military force may be utilized outside the United States and areas of 
active hostilities.
    U.S. military capabilities are but one part of our comprehensive 
counterterrorism effort. We will continue to enable our allies to 
develop the capability to counter terrorists within their borders. When 
direct action is necessary, DOD meticulously follows the PPG procedures 
to ensure we make well-informed decisions based on the most up-to-date 
intelligence and the expertise of our national security professionals. 
The Department implements a rigorous, transparent and accountable 
review process. We will scrupulously adhere to the rule of law and the 
highest ethical standards in implementing the strategy and guidance.
    Question. Are there steps DOD should take to better coordinate its 
efforts to combat terrorism with those of other Federal departments and 
agencies?
    Answer. I believe that improved interagency cooperation is one of 
the signature accomplishments of the struggle against terrorism over 
the last decade. Nonetheless, improving interagency coordination was a 
key finding in our Decade of War study, and it is essential that we 
continue to raise the bar. At the national level, the Joint Staff 
participates in both the National Security Staff's Counterterrorism 
Security Group and the President's Counterterrorism Board of Directors. 
At the regional level, our geographic combatant commands advance our 
efforts by working closely with U.S. embassies, interagency partners 
and local actors. The Department continues to work with our interagency 
partners to assess and integrate lessons learned into our doctrine, 
training, planning, and operations.
    Question. What do you view as the role of DOD in countering al 
Qaeda and affiliated groups in cyberspace?
    Answer. We view cyber as an essential capability for Joint Force 
2020. Similar to our other counterterrorism efforts, we recognize that 
defense of cyberspace requires an integrated approach to providing the 
best protection possible for our Nation. Working with intelligence, 
homeland security, and law enforcement partners, we will remain alert 
to the potential for cyber attacks on our Homeland conducted by 
terrorist groups. Meanwhile, opportunities exist for DOD to assist in 
the exploitation of cyberspace to counter extremist messaging through 
military information support operations. We have processes in place to 
identify and defend against cyber attacks, and share information with 
industry to mitigate effects.
                       special operations forces
    Question. The previous two Quadrennial Defense Reviews (QDRs) have 
mandated significant growth in our Special Operations Forces (SOF) and 
enablers that directly support their operations.
    Do you believe that QDR directed growth in the size of SOF should 
be retained despite current budgetary pressures?
    Answer. Growth in our Special Operations Forces capability was 
necessary to meet the demands of the conflicts in which we have been 
engaged over the past decade. While some of the growth has supported 
countering terrorism, the principle share of increased capacity has 
been used to support counterinsurgency (COIN) campaigns in Iraq and 
Afghanistan. We have planned to use the SOF capacity released by the 
reduction in COIN demand in Iraq and Afghanistan in two ways: (1) to 
rest and reset the force; and (2) to grow our building partner capacity 
efforts worldwide. However, given the financial downturn we face, we 
must balance the need for SOF capabilities with our need to address 
other capability demands in light of increased budgetary pressures. 
Accordingly, I support maintenance of only programmed SOF resourcing, 
shifting priorities inside the community in order to best establish the 
capabilities, capacities and readiness required to meet our most 
pressing needs--most notably continuing to counterterrorism--while 
doing the best we can to service other missions.
    Question. In recent years, Special Operations Forces have taken on 
an expanded role in a number of areas important to countering violent 
extremist organizations, including those related to information and 
military intelligence operations. Some have advocated significant 
changes to U.S. Special Operations Command's (SOCOM) title 10 missions 
to make them better reflect the activities special operations forces 
are carrying out around the world.
    What current missions, if any, do you believe can and should be 
divested by SOCOM, and why?
    Answer. At this time, I do not recommend changes to SOCOM's title 
10 missions. In coordination with DOD, the Joint Staff uses a range of 
processes--such as the Unified Command Plan, Guidance for the 
Employment of the Force, and Joint Strategic Capabilities Plan--to 
assess missions and responsibilities assigned to SOCOM on a continuing 
basis. SOF remain uniquely suited to conducting certain information and 
intelligence operations. The language in section 167 of title 10, 
U.S.C., provides the President and the Secretary of Defense flexibility 
to meet changing circumstances.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, what are they and why do you advocate adding 
them?
    Answer. I do not recommend SOCOM gain any additional missions at 
this time, pending a review of strategic planning documents. SOF are 
well-positioned to provide an appropriate range of capability to Joint 
Force Commanders. We will continue to use lessons from our Decade of 
War studies to better integrate SOF and the general purpose force.
    Question. What can be done to ensure that indirect special 
operations missions with medium- and long-term impact, such as 
unconventional warfare and foreign internal defense, receive as much 
emphasis as direct action, and that they receive appropriate funding?
    Answer. The Chairman has placed emphasis on many aspects of foreign 
internal defense in his Capstone Concept for Joint Operations, and has 
developed specific Joint Doctrine on Unconventional Warfare. If I am 
confirmed, one area that I may examine for enhanced legislative 
authorities is greater opportunities for non-SOF units to undertake 
building partner capacity tasks, which will relieve some of this burden 
from SOF forces in a severely restricted budget climate.
                     special operations authorities
    Question. Reportedly, the Commander of SOCOM has sought more 
control over the deployment and utilization of Special Operations 
Forces. For example, the Secretary of Defense recently modified policy 
guidance for the combatant commands that gave SOCOM, for the first 
time, responsibility for resourcing, organizing, and providing guidance 
to the Theater Special Operations Commands of the geographic combatant 
commanders and Special Operations Forces assigned to them. It has been 
reported that the Commander of SOCOM is also seeking new authorities 
that would allow him to more rapidly move Special Operations Forces 
between geographic combatant commands.
    Please provide your assessment of whether such changes are 
appropriate and can be made without conflicting with civilian control 
of the military, infringing upon authorities provided to the geographic 
combatant commanders, or raising concerns with the State Department.
    Answer. Special Operations Forces undertake operations only with 
the approval of the requisite authorities, including the President, the 
Secretary of Defense, the geographic combatant commanders, and, where 
appropriate, the Chiefs of Mission. The SOCOM commander has made it 
clear that the changes he is recommending are not intended to infringe 
upon the authority of the Combatant Commanders--and as a former 
commander, I remain sensitive to this. Rather, he is trying to provide 
better capability to the combatant commanders such that they may use 
SOF forces more efficiently and effectively. I believe the proposed 
changes enhance the global force by networking with our U.S. 
interagency counterparts as well as our foreign allies and partners. If 
I am confirmed, I would support a more efficient and effective ability 
of our Special Operations Forces to respond to global demands in the 
future.
                u.s. cyber command manning and training
    Question. U.S. Cyber Command (CYBERCOM), as a combatant command, 
executes offensive and defensive military operations in cyberspace 
under title 10. CYBERCOM, in conjunction with the Military Services, is 
defining its personnel requirements, which will result in a requirement 
for the Services to provide thousands of personnel with high levels of 
training and skill in a technically demanding area. This force 
requirement could grow substantially in future years as DOD learns more 
about the cyber capabilities of potential adversaries and as more 
countries gain sophisticated cyber warfare expertise and capacity.
    What are your views about programming the majority of these 
personnel under the Military Intelligence Program (MIP)?
    Answer. U.S. Cyber Command is a subunified command. The significant 
amount of the work to provide planning and options in cyberspace is 
going to require intelligence personnel, not unlike the work conducted 
by our airborne Intelligence, Surveillance and Reconnaissance (ISR) 
platforms. We are taking a very close look at the mix of personnel, 
both military and intelligence, required to execute missions in 
cyberspace and intend to strike the right balance. The Services are in 
the process of building our initial target of 133 cyber teams from 
existing force structure. Based on how the Services are currently 
manned, trained, and equipped, MIP personnel in two Services, the Army 
and the Navy, will be in the majority, while in the Air Force and 
Marine Corps, MIP personnel will be in the minority. As we normalize 
cyber operations, we believe those differences between Services will 
decrease over time, and across the entire force we would expect MIP 
personnel to be in the minority overall, just like the other domains. 
However, we also expect MIP personnel to be a larger percentage of the 
cyber force due to the significant requirement for ISR support in the 
cyber domain.
    Question. Are cyber offensive and defensive operations intelligence 
missions?
    Answer. No, cyberspace operations are not inherently intelligence 
missions, though they can require intelligence if they are to succeed. 
DOD cyberspace operations are designed to operate and defend DOD 
information systems, support the defense of non-DOD systems, and to 
project power in and through cyberspace in order to satisfy national 
security objectives. Like all operational military missions, cyberspace 
operations, both offensive and defensive, are supported by mission-
tailored-all source intelligence. As such, cyberspace operations 
include the conduct of intelligence, surveillance and reconnaissance, 
and operational preparation of the environment in support of mission 
objectives. However, a substantial portion of the offensive and 
defensive work is not an intelligence mission.
    Question. Will programming of CYBERCOM personnel under the MIP 
budget also lead to policy and resource oversight by the Under 
Secretary of Defense for Intelligence?
    Answer. Like any domain, there are both military operations and 
intelligence aspects of cyber operations that demand policy and 
oversight from both the Under Secretary of Defense for Policy and the 
Under Secretary of Defense for Intelligence. Both are active in this 
area. I would defer to OSD for further guidance on oversight 
requirements.
    Question. Do you have any concerns about the ability of the 
Services to generate and retain the required numbers of skilled and 
highly trained personnel to support CYBERCOM?
    Answer. Because manning, training and equipping the force, and then 
retaining highly skilled personnel, is always a core concern, the 
Services are closely managing their provision of critical cyber 
personnel. The Services recognize this as a key priority and seem to be 
on track to provide the required personnel. As the Department gradually 
transitions to a Joint Information Environment, we should be able to 
transition more billets that are involved in simply managing networks 
into support more advanced CYBERCOM missions. We will continue to look 
to CYBERCOM to define a joint training standard. Cyberspace personnel 
managed by each Service to meet the Service's unique requirements must 
also meet DOD's established common standards and qualifications. It is 
imperative that these personnel exhibit exceptional knowledge of 
technical fundamentals and tactical tradecraft, and be able to employ 
that expertise as part of an integrated warfighting team. We have 
advanced our ability to generate skilled cyberspace professionals in a 
short amount of time, but must continue to provide the right incentives 
to retain these personnel in the current budget environment as we 
attempt to compete against industry for highly trained and skilled 
personnel.
    Question. Should training for the CYBERCOM mission teams be 
conducted by the National Security Agency, by the Military Services, or 
in joint training facilities?
    Answer. There is some training associated with specialized cyber 
operations tasks that is common to both an intelligence and an 
operational function, and that is best conducted in close coordination 
with the National Security Agency. There are also service training 
venues established that have the ability to produce some of the 
necessary skills required for CYBERCOM Mission Teams. Going forward, it 
will be important for the Joint Staff, the Services, and CYBERCOM to 
work together to build joint training standards and determine the best 
way to train to those standards.
    Question. Have you considered whether the Commander of CYBERCOM 
should have authorities over Service personnel decisions affecting the 
cyber mission that are similar to those enjoyed by statute and by DOD 
regulation by the Commander of U.S. Special Operations Command?
    Answer. The Department is examining this option as one of many 
possible ways to enhance the effectiveness of cyber forces. For now the 
current way in which personnel authorities are structured is working 
satisfactorily. However as CYBERCOM evolves there may be merit in 
mirroring some of the approaches we have taken with SOCOM, including 
personnel decisions.
    Question. Are there adequate cyber test facilities to support 
CYBERCOM's offensive missions, taking into account that such missions 
may involve permanent damage to targets?
    Answer. There are currently a number of test ranges and facilities 
available to conduct such testing. The quantity is currently adequate, 
but the need could grow--clearly, financial limitations and uncertainty 
could constrain additional of additional facilities should they be 
required. The real issue is the joint alignment and management of those 
resources to facilitate testing and training on an annual basis. The 
need for cyber facilities for testing and mission rehearsal of advanced 
offensive capabilities remains a critical enabler for CYBERCOM mission 
effectiveness. We continue to review the offensive testing and 
evaluation requirements, especially in light of the approved cyber 
mission force build out. These requirements are often blended with 
training, exercise, and certification requirements to drive cyber range 
solution sets across DOD.
                      defense science board report
    Question. The Defense Science Board (DSB) in January 2013 released 
a Task Force report on ``Resilient Military Systems and the Advanced 
Cyber Threat.'' This report concluded that the effects of cyber warfare 
on civilian infrastructure could be as severe as some forms of nuclear 
attack, and suggested that nuclear forces should play a role in 
deterring devastating cyber attacks.
    What are your views on whether nuclear weapons could and should be 
used as an element to deter severe attacks on critical infrastructure?
    Answer. As stated in the NPR, the fundamental role of U.S. nuclear 
weapons is to deter nuclear attack on the United States, our allies, 
and partners. We have other means to credibly deter cyber attacks 
against the United States, to include both non-kinetic and kinetic 
means.
    Question. The DSB report also recommended that DOD segregate a 
portion of its long-range advanced conventional strike capability and 
greatly enhance its resistance to cyber attack to ensure that the 
President retains options below the use of nuclear weapons in the event 
of a cyber attack that compromised our conventional forces or the means 
of controlling them.
    What are your views on the reasoning of the DSB Task Force 
regarding the severity of the potential threat to our conventional 
forces and the means of controlling them, and whether prudence dictates 
extraordinary protections for portions of our military forces?
    Answer. I do not believe we need to segregate any quantity of 
conventional forces strictly in anticipation of a cyber attack. 
Anticipated budget restrictions will stress our conventional operations 
capacity enough, and segregating more of these forces will hinder our 
ability to use them for other contingencies. Rather, we should ensure 
we continuously assess the security and robustness of the networks we 
use to exercise command and control over these strike capabilities. The 
networks supporting our long-range advanced conventional strike 
capability already employ robust protection measures, particularly 
those platforms that are nuclear-capable. Additionally, we maintain 
redundant forms of communication, to include analog systems, and 
routinely train and exercise to minimize the extent to which cyber or 
electronic warfare attacks degrade our capabilities. Again, however, we 
should not rest on our current capability, and improved security and 
survivability of our command and control systems is a matter I take 
very seriously.
    Question. The DSB report also concluded that DOD has an inadequate 
understanding of how conflict in cyberspace would or could develop, 
what actions and reactions might ensue, and how conflict could 
escalate. To help address this deficiency, the Task Force urged the 
Department to develop the capability to conduct large-scale modeling 
and simulation of cyberwarfare.
    What are your views on this issue?
    Answer. Conflict in cyberspace will indeed be complex. As we have 
seen over history, it would be hubris for anyone to claim a complete 
understanding of how a new technology will perform in combat or will 
influence a conflict. We can only do the best we can to understand it 
in advance. As such, developing and conducting large-scale modeling and 
simulation exercises would expand our understanding of cyberspace 
conflict, decision thresholds, escalation concepts, and decision 
uncertainty. We are taking steps to improve our cyber test and training 
range capacity and capabilities to ensure we can train our cyber forces 
in exercises like Cyber Flag and Cyber Knight. The major cyber ranges 
are receiving an increase in funding in fiscal year 2014 to meet an 
expected demand in training and testing. The Services and combatant 
commands continue to aggressively incorporate cyber into exercises at 
the direction of the Secretary. We are also incorporating cyber into 
our large scale modeling and simulation capabilities to better 
understand the domain. The Joint Staff tested for the first time in a 
recent NORTHCOM exercise a simulation capability that presented to the 
training audience degraded network effects from cyber activity. The 
Department of Defense has also taken steps by issuing orders, policy, 
and doctrinal guidance to the Joint Force as seen in new joint 
doctrine, updates to the Standing and Supplemental Rules of Engagement, 
and guidance about exercising cyberspace operations with the other 
operating domains. These actions, combined with the lessons garnered 
through future large-scale modeling and simulation, should improve our 
understanding of the dynamics of conflict in cyberspace.
                  intelligence collection and analysis
    Question. After September 11, intelligence collection and analysis 
focused on discovering, identifying, locating, and defeating terrorists 
and insurgents. These missions involve ``finding needles in 
haystacks,'' and were addressed in part by human intelligence 
operations and by applying advanced information technology to collect 
and combine and sift through vast amounts of information from many 
unconventional sources. These intelligence capabilities are applicable 
to a range of transnational security challenges, but are less useful 
for supporting more traditional forms of military operations against 
nation-states.
    Do you think it is necessary to evaluate the current posture and 
plans of DOD's intelligence components to ensure that capabilities and 
capacities for supporting military operations against elusive, 
networked adversaries and against conventional military establishments 
are appropriately balanced?
    Answer. Balancing intelligence collection between threat networks 
and nation-states is continually evaluated at the theater level by 
combatant commanders and reflected in both their collection management 
process and their inputs into SecDef's management of the force guided 
by the Force Allocation Decision Model.
    This balance is also scrutinized at the national level by the 
intelligence community as guided by the President's National 
Intelligence Priorities Framework in concert with experts in Congress 
and the NSS.
    Since 2001, we have presided over a growing enterprise of ISR 
systems and operations. Some of these systems, while extremely 
effective in relatively permissive environments, will likely be 
unsuitable for operations against a modern military force. Therefore, 
as we build ISR in Joint Force 2020, sensor and platform diversity will 
be critical to successfully operate against a wide variety of target 
sets and in a variety of threat environments--permissive, contested, 
and denied.
    That said, there are a few key similarities between countering 
elusive, networked adversaries and conventional military 
establishments, particularly when trying to find, fix, and finish 
critical elements of that conventional force, such as asymmetric 
capabilities (including weapons of mass destruction) and command and 
control nodes. In such cases, we will benefit from the advances we have 
made over the past decade.
                         information operations
    Question. The Government Accountability Office reports that DOD has 
``spent hundreds of millions of dollars each year'' to support its 
information operations outreach activities. Many of these programs are 
in support of operations in Afghanistan, but Military Information 
Support Teams from U.S. Special Operations Command also deploy to U.S. 
embassies in countries of particular interest around the globe to 
bolster the efforts of the Department of State and the U.S. Agency for 
International Development (USAID). Further, the geographic combatant 
commands are increasingly moving into this operational space.
    What are your views on DOD's military information support 
operations and influence programs and their integration into overall 
U.S. foreign policy objectives?
    Answer. We continue to assess and improve our information 
operations activities because winning the narrative remains a critical 
element of advancing our national security. I view Military Information 
Support Operations as traditional military activities that a global 
combatant commander uses to support theater security cooperation and 
underpin theater campaign plan objectives. Influence programs and 
activities are also a means to support broader U.S. foreign policy 
objectives.
    DOD's military information support operations and influence 
programs are integrated into geographic combatant command (GCC) and 
country team objectives and programs. Synchronization across government 
is critical, and GCCs continue to improve coordination with the State 
Department, USAID and Country Teams by conducting monthly and quarterly 
working groups/VTCs and reports to share information.
    Question. What is the role of DOD versus the Intelligence Community 
and the State Department?
    Answer. DOD continues to work alongside the Department of State and 
USAID in support of foreign policy objectives. DOD information 
operations can complement and reinforce the Department of State and 
other government agency efforts by focusing on military audiences and 
ensuring information operations themes and messages are derived from 
and synchronized with the State Department public diplomacy.
    DOD conducts periodic working groups with the Intelligence 
Community and the State Department to deconflict and synchronize 
information operations and military information support operations 
(MISO) activities at the GCC, Joint Staff and OSD levels.
    Question. How do you believe the success of these programs should 
be measured, especially in light of the constrained budget environment?
    Answer. Measuring success of these programs remains a challenge. 
The information space is inherently complex, but should not be yielded 
to an adversary. It is not always easy to discern whether a change is 
due to an information program or some other activity more closely 
associated with actions on the ground. However, DOD continues to 
develop and monitor measures of performance and measures of 
effectiveness for these programs. We are incorporating these lessons in 
our doctrine, training, planning, and reporting.
           department of defense counternarcotics activities
    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1.5 billion to support the Department's CN 
operations, building the capacity of certain foreign governments around 
the globe, and analyzing intelligence on CN-related matters. In a 
recent Government Accountability Office (GAO) report, GAO found that 
DOD ``does not have an effective performance measurement system to 
track the progress of its counternarcotics activities.'' This is the 
second such finding relating by GAO to DOD CN in the last decade.
    What is your assessment of the DOD CN program?
    Answer. DOD's counternarcotics activities operate in an inherently 
complex environment in which it can be difficult to determine with 
precision whether generated effects are due to DOD efforts, other U.S. 
interagency efforts, host nation efforts, or factors beyond the control 
of these entities. I believe it would be hubris for anyone to claim the 
ability to create a system that would accurately track the progress of 
any effort in the complex arena. We do believe that DOD's CN program is 
critically important to enabling the broader U.S. interagency and 
foreign partner counternarcotics efforts. Our foreign and interagency 
partners with counterdrug responsibilities continually ask for DOD 
training, equipment, exchanges of information, planning, 
infrastructure, transportation, analytical, aerial reconnaissance, 
communications, and related support to build the capacity of foreign 
security services with counterdrug responsibilities. These roles and 
activities are appropriate and effective in strengthening law 
enforcement, governance, and rule of law institutions.
    Question. In your personal view, should DOD continue to play a role 
in stemming the flow of illegal narcotics?
    Answer. Yes. though current budget limitations will present an 
enormous challenge to our ability to do this while addressing our many 
other security responsibilities. With the potential for the convergence 
of violent extremist organizations with drug trafficking organizations, 
I see DOD's continued support to law enforcement as a necessary 
component of our national security.
    Question. In your position as the Commander of U.S. Northern 
Command, what was your assessment of the DOD CN program as it related 
to Mexico and the Caribbean?
    Answer. The CN efforts of the United States, Mexico, and Caribbean 
nations have achieved major and sustained progress against cocaine use 
and distribution throughout the Western Hemisphere. U.S. Northern 
Command furthers this effort by achieving unprecedented cooperation 
with the Governments of Mexico and Caribbean nations in our efforts 
against the threat, and I expect continued cooperation in future years. 
I believe these roles/relationships are essential to our policies and 
strategies in the region. However, this progress is deeply threatened 
by current budget decreases and uncertainties, as resources will likely 
be diverted from this area to address our many other security needs.
    Question. In your position as the Commander of U.S. Northern 
Command, were there any activities that you had hoped to be able to 
conduct using DOD CN funding, but were not able to do and that you, if 
confirmed, would recommend DOD seek the authority to conduct?
    Answer. I found that I had sufficient authorities to serve an 
effective supporting role to other U.S. Government agencies and foreign 
partners with counternarcotics responsibilities. Should I be confirmed, 
I will remain supportive of leveraging our current authorities and 
longstanding relationships within the region to support our partner 
nations and defend the Nation from transnational criminal 
organizations.
                       responsibility to protect
    Question. The U.S. Government has recognized the ``responsibility 
to protect'' (R2P)--that is, the responsibility of the international 
community to use appropriate means to help protect populations from 
genocide, war crimes, ethnic cleansing and crimes against humanity, by 
encouraging states to protect their own populations, by helping states 
build the capacity to do so, and by acting directly should national 
authorities fail to provide such protection. In its 2010 Quadrennial 
Defense Review, DOD names ``preventing human suffering due to mass 
atrocities'' as one of a long list of potential contingencies that DOD 
might be called on to address. DOD has begun to explore some of the 
implications of R2P, by considering ``mass atrocity prevention and 
response operations''.
    In your view, how high a priority should the ``responsibility to 
protect'' be for the U.S. Government as a whole?
    Answer. The ``responsibility to protect'' is not currently viewed 
by the United States as a legal basis for the use of military force. 
Our nation may call on us to prevent human suffering, initially using 
means other than force, and could use military force as a last resort 
if other instruments of national power fail. We work closely with our 
international military partners, where needed, to emphasize 
professionalism, commitment to the rule of law, and strengthen their 
capacity to protect their citizens. Without legal standing, it is not a 
practice we would rank order by priority, though we would be prepared 
to act if called upon by the President to do so.
    Question. In your view, what should be the role of DOD, if any, in 
fulfilling the responsibility to protect?
    Answer. The use of military force is only one of many instruments 
of national power. We should always view use of force as a last resort, 
to be considered only when all other instruments of national power have 
failed and used under appropriate legal authority. We should ensure we 
are doctrinally prepared to execute a mission if called upon to do so. 
The role of DOD in fulfilling the responsibility to protect, should it 
be cited as a casus belli, would be to provide the President with a 
full range of options and be prepared to act if called upon to do so.
    Question. In your view, what is the proper application of R2P 
doctrine with respect to the situation in Syria?
    Answer. R2P has been mentioned as a potential legal basis for the 
use of force in Syria, but to my knowledge a decision has not been 
taken to activate this basis. Using R2P as a basis would be a political 
vice military decision. Meanwhile, the U.S. Government is working with 
allies and partners and with the Syrian opposition to provide 
humanitarian assistance within Syria and across the region. The United 
States is providing nearly $815 million in aid to help the victims of 
this conflict, including emergency medical care and supplies, food, and 
shelter. The recent addition of more than $300 million in humanitarian 
aid will increase food aid, medical care, clean water, and provide 
shelter and other relief supplies for families suffering in Syria and 
neighboring countries.
        operation observant compass & the lord's resistance army
    Question. Despite pressure by the Ugandan People's Defense Forces 
(UPDF) and efforts by U.S. Special Operations personnel to support 
them, elements of the Lord's Resistance Army (LRA)--including Joseph 
Kony--continue to operate and commit atrocities against civilian 
populations in the Central African Republic, Democratic Republic of the 
Congo, and South Sudan. Some observers have identified operational 
concerns with this mission, including that: (1) supported forces are 
trying to find an elusive foe in an area roughly the size of 
California, much of which is covered in thick jungle; (2) technical 
support to U.S. forces and their UPDF partners from the defense and 
intelligence community continues to be inadequate; and (3) limitations 
continue to be placed on the ability of U.S. Special Operations 
personnel to accompany UPDF partners outside of main basing locations, 
thereby limiting the level of direct support they can provide.
    In your view, what is the objective of Operation Observant Compass?
    Answer. Operation Observant Compass aims to: (1) protect civilians, 
(2) promote DD/RRR (disarmament, demobilization, reintegration, 
repatriation, and resettlement), (3) increase humanitarian access/
support, and (4). This is a whole-of-government effort across a range 
of U.S. Government agencies and partners. DOD is the primary agent for 
assisting the UPDF in removing Kony and other senior LRA leaders from 
the region.
    I acknowledge the operational challenges of this mission in the 
context of competing demands and higher priorities. U.S. Special 
Operations forces do accompany UPDF partners on missions in the Central 
African Republic, remaining clear of combat action with LRA elements, 
but they are not doing so in Sudan or the disputed region due to 
diplomatic concerns.
    Question. Do you support the continuation of DOD's current level of 
support to this mission?
    Answer. The current level of support is appropriate. DOD is 
currently weighing future options, as we prioritize limited resources 
among numerous competing priorities.
                international peacekeeping contributions
    Question. In testimony before the House Committee on Foreign 
Affairs on July 29, 2009, Ambassador Susan Rice, U.S. Ambassador to the 
United Nations, stated that the United States ``is willing to consider 
directly contributing more military observers, military staff officers, 
civilian police, and other civilian personnel--including more women I 
should note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
more military personnel to both staff positions and military observers 
in support of U.N. peacekeeping operations?
    Answer. If confirmed, I would be willing to consider opportunities 
to support peacekeeping missions, including key staff officers and 
military observers, if such a course of action aligned with our 
national security interests. However, this mission must of necessity 
compete within the spectrum of other national security interests, 
including counterterrorism, that are often a higher priority.
    Question. If confirmed, would you support identifying methods 
through which the DOD personnel system could be more responsive to 
requests for personnel support from multilateral institutions like the 
United Nations?
    Answer. We have made additional contributions in this area over the 
past 2 years, as the appointment of Army Brigadier General Hugh Van 
Roosen to force chief of staff for the United Nations Mission in 
Liberia has demonstrated. We have also worked closely with the U.S. 
Mission to the United Nations to overcome administrative obstacles to 
the assignment of U.S. servicemembers within the U.N. Secretariat. I am 
confident we will continue to improve upon our processes and support of 
multilateral institutions. We may be able to bring more capacity to 
bear as we draw down from Afghanistan, keeping in mind that the force 
will be shrinking with budget cuts and we need to allow the force to 
rest. Our U.S. servicemembers bring battle-tested experience and 
expertise that enhance these types of organizations in the execution of 
their vital global missions.
                   global peace operations initiative
    Question. The Global Peace Operations Initiative was established 
after the 2004 G8 Sea Island Summit to address growing gaps in 
international peace operations. In most cases, DOD plays a supporting 
role in the implementation of this train and equip program.
    What is your understanding and assessment of this program?
    Answer. The Global Peace Operations Initiative (GPOI) is a key 
component of our Government's strategy to build the capacity of U.S. 
partners to carry out peacekeeping operations. Through small 
investments in training and equipment, we can prepare motivated 
partners for successful participation in peacekeeping. GPOI has 
directly trained over 175,000 peacekeepers from 38 countries and 
enabled the training of another 52,000 instructors since 2005. Over two 
dozen peace operations have benefited from the program. GPOI is a 
strong example of the results we obtain when the Departments of State 
and Defense work together to promote our Nation's security.
    Question. Would you support additional DOD contributions--in the 
form of U.S. military trainers--to support this program?
    Answer. The GPOI has been successful in building partnership 
capacity in large part because of its flexibility. Our combatant 
commanders have made excellent use of this program to tailor assistance 
to the specific needs of individual partners. While GPOI underwrites 
training delivered by both contractors and military personnel, our 
experience has shown that servicemembers produce more effective and 
longer-lasting results than contract instructors. If confirmed, I would 
consider this factor, subject to the demands of our other operations 
overseas and against the backdrop of the severe budget restrictions we 
face under the Budget Control Act.
       national strategy to combat transnational organized crime
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing. The Director of National 
Intelligence recently described transnational organized crime as ``an 
abiding threat to U.S. economic and national security interests,'' and 
stated that ``rising drug violence and corruption are undermining 
stability and the rule of law in some countries'' in the Western 
Hemisphere. In July 2011, the President released his Strategy to Combat 
Transnational Organized Crime: Addressing Converging Threats to 
National Security. One of the priority action areas designated in the 
strategy is ``enhancing DOD support to U.S. law enforcement.''
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The President's Strategy to Combat Transnational Organized 
Crime integrates all elements of national power, including the 
military, to combat transnational organized crime and related threats 
to national security. Ultimately, within our capacity to do so, the 
strategy seeks to reduce transnational organized crime to a manageable 
public safety concern.
    Question. What is your understanding of the Department's role 
within the President's strategy?
    Answer. DOD is not the lead agency responsible for combatting 
transnational organized crime. DOD instead plays an appropriate and 
important role in supporting law enforcement to counter threats to 
national security.
    Question. In your view, should DOD play a role in providing support 
to the U.S. law enforcement and the Intelligence Community on matters 
related to transnational organized crime?
    Answer. DOD is often able to provide unique supporting capabilities 
to address the full range of transnational criminal threats, including: 
military intelligence support to law enforcement, counter-threat 
finance, military-to-military capability development, and military 
operational activities against threats to the United States. Some of 
the capabilities DOD has developed over the last decade of war are 
applicable to countering transnational organized crime. DOD should 
provide support to U.S. law enforcement and the Intelligence Community 
as part of a whole-of-government approach, consistent with current 
authorities.
                       mass atrocities prevention
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10.
    Among interagency partners, what is DOD's role in addressing 
atrocity threats, and what tools does DOD have for preventing or 
responding to atrocities?
    Answer. DOD has developed Joint Doctrine for conducting Mass 
Atrocity Response Operations and conducted a comprehensive review of 
DOD training. Atrocity prevention and response is now part of DOD plans 
and planning guidance. In addition, DOD is working with the U.N. to 
strengthen that organization's ability to respond to atrocity events.
    Question. Has DOD developed planning processes toward this effort 
so that it will be able to respond quickly in emergency situations?
    Answer. Yes. DOD has developed planning processes toward this 
effort.
    Question. In your view, is the situation in Syria a mass atrocity?
    Answer. My view is consistent with the White House Fact Sheet of 
May 1, 2013.
                             future of nato
    Question. As a result of coalition operations in Afghanistan, 
Libya, and elsewhere the NATO alliance has achieved unprecedented 
levels of integration and interoperability.
    If confirmed, what recommendations, if any, would you have for 
capturing the lessons learned from recent coalition operations and 
maintaining the capabilities developed as a result of those operations?
    Answer. Both the United States and NATO have been capturing 
incorporating lessons learned into education, training and preparations 
for future operations and missions. Within the Joint Staff, our J-7 
Directorate for Joint Development has the DOD lead on lessons learned. 
Our J-7 works with NATO, Allied Command Transformation, headquartered 
in Norfolk, VA, which has the lead on lessons learned from Alliance 
operations (with most of NATO's work performed by the Joint Analysis 
and Lessons Learned Center located in Monsanto, Portugal).
    I am keenly aware of the potential for diminishing interoperability 
and readiness as operations in Afghanistan draw down. If confirmed, I 
intend to continue our efforts through the Connected Forces Initiative 
to ensure all NATO forces and those of capable partners remain ready 
and interoperable. Subject to funding, this will include expanded 
education; increased training and exercises; and better use of 
technology. Additionally, the increased support for the NATO Response 
Force to which we have committed in the wake of our drawdown in Europe 
will provide excellent opportunities for maintaining our coalition 
warfighting capability. Finally, a broad array of exercises will help 
inhibit the atrophy of this important capability.
    Question. In your view, what existing or new missions should be the 
focus of NATO's strategic efforts over the next 5 years?
    Answer. In my view, NATO operations in Afghanistan will remain a 
key focus of NATO's strategic effort over the next 5 years. This 
includes successfully concluding the ISAF combat operation by the end 
of 2014 and ensuring that NATO is ready to commence its new train, 
advise, and assist mission, known as Resolute Support, on 1 January 
2015. The task of that mission will be to ensure that Afghan National 
Security Forces are sustainable, credible, and capable of maintaining 
security in Afghanistan under responsible and efficient Afghan Security 
Institutions, operating within appropriate civilian and political 
controls.
    That said, NATO must also anticipate future threats or enhance its 
preparedness for threats we already understand. These include continued 
emphasis on ballistic missile defense, an understanding of the 
transformation of terrorist groups, and cyber defense to the extent it 
is collectively feasible. Given the evolution of terrorist threats, it 
may be wise to consider an alliance capability to respond quickly to 
terrorist events that threaten member citizens overseas.
    Question. What steps, if any, could or should NATO take, in your 
view, to reduce tensions with Russia?
    Answer. NATO has made significant progress in reducing historical 
Cold War animosities and suspicions by focusing on cooperation in 
addressing common security threats in the areas such as Afghanistan 
stabilization, counter-piracy, counterterrorism, and 
counterproliferation. Such cooperative efforts are spearheaded through 
the NATO-Russia Council (NRC). The NRC should continue to explore new 
forms of transparency and confidence building to augment the level of 
trust and goodwill between NATO and Russia. Enhancing military-to-
military contacts at all levels is always beneficial, as we discovered 
during the conflict in Georgia; while Russia can be grudging in 
developing these contacts, NATO should play a role in fostering this 
aspect of the relationship.
    But long-term improvement in relations has as much to do with 
changed perceptions within Russia as with any NRC project or initiative 
that can be accomplished. A shift in Russia's own strategic calculus 
will take time and firm, consistent NATO engagement.
    Question. In your view, how should NATO proceed on the issue of 
further enlargement of the alliance over the next 5 years?
    Answer. The further enlargement of the alliance is a political 
decision that can be made only by the NATO Heads of State and 
Government. I continue to believe, however, that nations able to 
meaningfully contribute to the security of the alliance should be given 
favorable consideration, consistent with Article 10 of the North 
Atlantic Treaty.
             prevention of and response to sexual assaults
    Question. In 2012, for the fourth year in a row, there were more 
than 3,000 reported cases of sexual assault in the military, including 
2,558 unrestricted reports, and an additional 816 restricted reports 
(restricted, meaning that, in accordance with the victim's request, 
they were handled in a confidential manner and not investigated). 
Moreover, a recent survey conducted by the DOD indicates that the 
actual number of sexual offenses could be considerably higher, as 6.1 
percent of active duty women and 1.2 percent of Active Duty men 
surveyed reported having experienced an incident of unwanted sexual 
contact in the previous 12 months.
    What is your assessment of the current DOD sexual assault 
prevention and response program?
    Answer. In short, while we have established a strong sense of 
urgency and put a host of important initiatives in place, I would be 
the first to acknowledge that we have a long way to go to achieve our 
goal of a culture in which such assaults simply cannot occur. We are 
aggressively pushing forward under the five pillars of Prevention, 
Advocacy, Investigation, Accountability, and Assessment, and we will 
not rest until we have solved this problem.
    We have taken strong action to bring perpetrators to justice, 
address a military culture that became too complacent of corrosive 
climate, and hold commanders accountable for both. The Secretary of 
Defense and the Joint Chiefs are personally committed to eradicating 
sexual assault within our ranks. We will continue to improve processes 
and programs as part of our comprehensive approach.
    The Services have achieved progress, to include specialized 
training for investigation and litigation, access to victim's advocates 
and counsel through special victim's programs, and highly qualified 
experts to advise on program progress.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. Our foremost concern remains the safety and well-being of 
the victim. If a sexual assault occurs, we would rather the victim 
provide an unrestricted report, which allows for thorough investigation 
and delivery of justice as appropriate.
    However restricted reporting must remain an option for victims, 
permitting access to services to meet their personal needs without the 
additional stress of a criminal investigation. I am personally 
committed to developing a climate across our Joint Force that makes 
victims comfortable and confident in unrestricted reporting.
    We are starting to see what we believe are higher rates of 
unrestricted reporting. Our initiative to move initial disposition 
authority to O-6 commanders or higher has increased unrestricted 
reporting. Access to Special Victim's Counsel and advocates has 
increased those victims willing to change a restricted report to an 
unrestricted report. We will continue to pursue these and other 
measures with the victim's interest always in mind.
    Question. What is your understanding of the adequacy of DOD 
oversight of military service implementation of the DOD and Service 
policies for the prevention of and response to sexual assaults?
    Answer. I believe DOD oversight of policy implementation is 
adequate and improving, but I recognize we still have gaps to close in 
collecting timely data and changing behavior in the force from top to 
bottom.
    The Sexual Assault Prevention and Response Office (SAPRO) oversees 
the Department's sexual assault policy. I have developed significant 
confidence in this office and its leadership, and I personally rely on 
them for advice and information. SAPRO works with the Services' offices 
to execute the Services' sexual assault prevention and response plans. 
SAPRO also works with the civilian community to develop and implement 
aggressive prevention and response approaches to the programs. They 
continue to lead on this issue by informing and advising commanders at 
all levels and closing the gaps as we detect them.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults have 
occurred?
    Answer. My experience has always been that commander accountability 
is the cornerstone of unit mission success and discipline, with 
commanders at every level upholding the standards of trust and respect 
that all of our men and women in uniform deserve. This is a consistent 
and important element of our military culture: the commander is held 
responsible for the climate in his or her unit. Sexual assault in the 
military found root in a climate that had become complacent. We are 
changing that, swiftly. We have already amended our command climate 
assessments by updating the surveys to include servicemembers' 
evaluation of their commanders on climate and sexual assault response. 
We will ensure that senior leadership has access to the results of 
those surveys. We have moved initial disposition authority for 
incidents of sexual assault to O-6 commanders or higher. But to make 
all of these efforts take hold and change the unit culture, the role--
and accountability--of the commander remains essential.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. We hold a unit commander responsible for everything the 
unit does or fails to do, on or off duty, whether CONUS or deployed in 
remote expeditionary circumstances. That kind of responsibility is best 
served by authority that aligns with it. Commanders receive extensive 
training in their unique legal responsibilities and continue to 
regularly consult with their judge advocates on all issues, including 
whether (or not) to prosecute alleged sexual assault offenses. If a 
commander and his or her judge advocate disagree, the decision will be 
reviewed at the next higher level. Removing commanders from the 
military justice process would send a harmful message that commanders 
cannot hold their people accountable and are not themselves accountable 
for everything in their unit. We could have removed this authority from 
commanders when we were struggling with equal opportunity and drug 
issues, but we didn't--and we got it right because commanders are the 
ones who fix problems in their units. I've had women commanders come up 
to me and insist we not take this out of the chain because they don't 
believe they can demand higher standards if they cannot enforce them.
    Question. Article 60 of the Uniform Code of Military Justice 
requires the convening authority to take action on the sentence issued 
by a court-martial and authorizes a convening authority, in his sole 
discretion, to take action of the findings of a court-martial, 
including setting aside a finding of guilty or changing a finding of 
guilty to a finding of guilty of a lessor included offense.
    What is your view about the authority of a convening authority to 
set aside or modify findings of guilt and authority to reduce a 
sentence imposed by court-martial?
    Answer. Article 60 of the Uniform Code of Military Justice 
currently grants broad authority and discretion to convening 
authorities to dismiss findings of guilt after trial. I have already 
endorsed Secretary Hagel's proposed amendments to Article 60 that 
remove a convening authority's ability to modify Court Martial findings 
or sentences for qualified offenses. A convening authority should 
continue to have the discretion to dismiss minor offenses under 
appropriate circumstances, such as to prevent an accused from the 
burden of a felony conviction when found guilty of minor misconduct but 
acquitted of major offenses. A convening authority should have the 
flexibility to adjudicate such offenses in an alternate fashion, and 
should retain the ability to modify sentences, which is an essential 
component of our plea bargain process.
    Question. During the recent full committee hearing on sexual 
assault, it was suggested that the terminology used in the Workplace 
and Gender Relations Surveys have resulted in difficulty in providing 
an accurate picture of the prevalence of sexual assault within the 
military. Specifically, use of the term ``unwanted sexual contact'' 
comprises such a broad spectrum of behavior that some have questioned 
the value of the survey.
    What is your view concerning the methodology and terminology used 
in the Workplace and Gender Relations Surveys and what changes would 
you recommend to improve the survey as a basis for better understanding 
the prevalence of sexual assault in the military?
    Answer. I feel we need to improve our methodology to provide more 
detailed--and more frequent--information about the prevalence of sexual 
assault and the conditions under which it occurs. Many of the survey 
terms we have used for years are too broad in scope and cover a broad 
spectrum of behavior--a choice that was made for understandable reasons 
at the time. However, we have learned from our efforts over the past 
decade and see the need for both aggregate and discrete data to inform 
our programs. Common terminology throughout the government and private 
sector will also help both communities talk about the same thing and 
better share effective practices.
                          religious guidelines
    Question. In your view, do policies concerning religious 
accommodation in the military appropriately accommodate the free 
exercise of religion and other beliefs, including individual 
expressions of belief, without impinging on those who have different 
beliefs, including no religious belief?
    Answer. Yes. We value the service and sacrifices of those members 
of the Joint Force who hold deep religious faith, and those of no 
religious faith, equally--and commit to provide each with a climate 
that promotes mutual respect and trust. DODI 1300.17, ``Accommodation 
of Religious Practices Within the Military Services'' states that ``The 
Department of Defense places a high value on the rights of members of 
the Military Services to observe the tenets of their respective 
religions or to observe no religion at all.'' We take the words ``high 
value'' seriously. As a result, policies ensure that each of the 
Services allows individuals to request accommodation of religious 
practices. Each request is considered on a case-by-case basis. The 
commander values the servicemember's free exercise of religion, while 
ensuring that approval of requests does not adversely affect mission 
accomplishment, military readiness, unit cohesion, good order, 
discipline or any other military requirement.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact unit cohesion and 
good order and discipline?
    Answer. Yes. Standing policies ensure commanders consider requests 
for accommodation of individual expressions of belief, to include 
apparel, grooming and worship practices. Requests are given equal 
consideration as long as they do not negatively impact mission 
accomplishment, military readiness, unit cohesion, good order, 
discipline or any other military requirement.
    Question. There have been reports of incidents in which individuals 
in the armed services have not been accommodated in the free exercise 
of religion.
    What actions, if any, have you directed to address these reports?
    Answer. While I'm not personally aware of any servicemember who has 
been denied accommodation of his or her free exercise of religion, I do 
know that in each of the Services, commanders carefully consider each 
individual request for accommodation and take these matters seriously. 
If an individual's request for accommodation is denied, then policies 
are in place that allow the member to appeal that denial all the way up 
to Service Headquarters level. Our policy is actually to approve these 
requests whenever possible. The bottom line is that military leaders 
place a high value on each servicemember's individual religious 
freedoms and we do our best to accommodate those freedoms.
              reserve components as an operational reserve
    Question. What is your understanding and assessment of the Reserve 
components as an operational Reserve, as opposed to its longstanding 
traditional role as a strategic reserve?
    Answer. As budget pressures tighten, the Reserve component role 
will evolve along with that of the Active component, which could alter 
the current shape of both components in ways yet to be determined. 
However, we know that sustained engagement in combat operations has 
transformed the Reserve components of our Armed Forces. Repeated combat 
deployments, as well as peacekeeping, humanitarian relief and homeland 
defense missions, have produced a force more operationally capable and 
experienced than any time in our Nation's history.
    I remain confident that given sufficient predictability of the next 
deployment, the vast majority of Reserve component forces and 
capabilities can be accessed systematically long into the future. 
National Guard and Reserve members expect to deploy periodically to 
meet the Nation's security needs, and many have volunteered with this 
understanding. This operational force is a direct result of the 
substantial investment in resourcing commitments and the personal 
sacrifice of members, their families, and their civilian employers.
    Question. In your view, what are the major challenges to 
maintaining and enhancing the National Guard and Reserves as a relevant 
and capable operational reserve?
    Answer. Our current budgetary challenges and the steady decline of 
Overseas Contingency Operations (OCO) funding will challenge our 
ability to maintain current levels of readiness in the National Guard 
and Reserves. With respect to the National Guard, we must be sensitive 
to responsibilities for State missions when considering the use of 
these units for operational employment overseas. While remaining a 
strong supporter of our Nation's Reserve component, I am concerned that 
a singular focus on maintaining the Reserve component at high readiness 
will degrade Active Duty readiness--our most responsive force. We are 
already seeing this with the requirement now in law for Air Guard units 
to be maintained at full combat readiness, which in a difficult budget 
environment has accelerated a decline in Active component squadron 
readiness.
    Question. What are your views about the optimal employment in 
generating forces for combat missions of the National Guard and 
Reserve?
    Answer. We have seen a significant change in Reserve component use 
over the past 20 years and have developed a Total Force--Active, 
National Guard, and Reserve--to meet sustained combatant commander 
requirements around the globe. This evolution and the broad range of 
security and financial challenges on the horizon require us to make 
smart decisions about Total Force roles and missions to ensure we have 
the forces needed to defend and advance our national interests.
    The recently published report to Congress on Unit Cost and 
Readiness for Active and Reserve components of the Armed Forces 
examined this issue in depth. The report concluded that the factors 
used to determine the proper mix and employment of Active and Reserve 
component units differ greatly not only among the Services but also for 
individual missions and unit types. These findings will inform the next 
Quadrennial Defense Review which will ultimately determine the optimum 
mix and employment models for our Total Force.
    Question. In your view, should homeland defense or other global or 
domestic civil support missions be assigned exclusively to the National 
Guard?
    Answer. No, this should be a full-spectrum effort, and it would be 
a disservice to our citizens if any one element capable of providing a 
response were to be excluded for political or other reasons. I believe 
each component of the Total Force--Active, Guard, and Reserve--has an 
important, layered, and interdependent role in the successful execution 
of homeland defense and civil support missions. We have taken steps to 
enhance this system through, for example, the Dual Status Commander 
concept. The Council of Governors has been most helpful in bringing 
perspective to and gaining understanding of the complexities of this 
process. I believe we should bring the most appropriate force to 
respond to any challenge the Nation faces, whether the issue is foreign 
or domestic.
    For domestic response, the National Guard is deeply embedded in our 
communities. In many cases, these soldiers and airmen possess unique 
skills, qualifications and experiences that enable rapid responses to 
natural and manmade disasters and provide invaluable contributions to 
homeland defense missions. In other cases, an Active component or 
Federal Reserve unit may be able to provide the right response more 
quickly due to their unique capabilities and/or proximity to an 
incident area.
                             national guard
    Question. What is your understanding and assessment of changes in 
the global and domestic roles and mission of the Army National Guard, 
the Air National Guard, and the National Guard Bureau?
    Answer. In military operations since September 11, the Nation drew 
extensively upon the Reserve components to meet operational 
requirements, and they have integrated seamlessly with the Active 
component on the battlefield for over a decade. The placement of the 
Chief of the National Guard Bureau on the Joint Chiefs of Staff 
formalized this operational relationship. Though the tempo of 
operations for the Reserve component will reduce as operations in 
Afghanistan draw to a close, some operational use of the Reserve 
component will persist. The National Guard Bureau has tremendous 
experience in domestic operations, so it will be an important voice for 
ensuring a seamless response across military components and interagency 
partners.
    Question. In your view, should there be a requirement that the 
position of Commander, U.S. Northern Command or Commander, U.S. Army 
North, the Army component commander, be filled only by a National Guard 
officer? Please explain.
    Answer. While I would welcome assignment of a National Guard 
officer to one of these commands, I believe senior leadership positions 
should be filled with the best, most fully qualified officer available 
at the time for that position. National Guard officers who possess the 
required qualifications for these positions should be considered 
equally with their Active component and Federal Reserve counterparts. I 
believe that restricting the selection pool to only National Guard 
officers could arbitrarily eliminate a more qualified officer for the 
position, which is contrary to our goal of finding the absolute best 
candidate for the job.
    Question. What steps need to be taken, in your view, to ensure that 
a ``deep bench'' of National Guard general officers is continually 
being developed?
    Answer. Building a deep and capable bench of general officers is 
extremely important for all components of the Total Joint Force, 
including the National Guard and Reserves. Key factors in developing a 
deep bench of general officers include education, deliberate officer 
development, and experience. We currently make education opportunities 
available to all our Reserve component officers, allowing them to 
attain the same qualifications as their active counterparts. The 
Services, National Guard Bureau, and the Federal Reserves maintain 
effective officer development and management programs to ensure the 
right people are receiving the right education and experience at the 
right time. The ``Chairman's 18 Reserve Positions''--18 general and 
flag officer billets throughout the Joint Force designated for Reserve 
component officers--is having a powerful and positive impact providing 
Reserve component officers the requisite experience required to be 
effective leaders at senior levels in the Total Joint Force. Inclusion 
of a three-star National Guard officer as the Deputy Commander at 
NORTHCOM and as the Deputy Director of the National Guard Bureau have 
enhanced our ability to provide senior positions for Guard officers.
                      rising costs of medical care
    Question. In testimony presented to Congress in February 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April 2009, then Secretary of Defense Gates told an audience at 
Maxwell Air Force Base that ``health care is eating the Department 
alive''. In recent years, the Department has attempted to address the 
growth in overall health care costs by identifying efficiencies as well 
as by proposing increased cost shares for military retirees.
    What is your assessment of the long-term impact of rising medical 
costs on future DOD plans?
    Answer. Health care consumes nearly 10 percent of the department's 
budget and could grow considerably over the next decade, taking an ever 
larger bite of our ability to invest in enhanced warfighting 
capability. The healthcare benefit is an important component of 
retention for our men and women. If confirmed, I will continue to work 
closely with Service and Department leaders and with this Congress to 
find reasonable and responsible ways to stem this growth while still 
fairly providing for the needs of our men and women. This will require 
finding efficiencies and encouraging healthier lifestyles, and may 
require increased cost shares from the constituents of the system.
    Question. If confirmed, what actions would you initiate or 
recommend to mitigate the effect of such costs on the DOD top-line?
    Answer. Through the last two budget cycles, Congress has permitted 
small increases in the TRICARE Prime enrollment fees. These adjustments 
were an important step to managing costs, but they are not enough to 
sustain the benefit in the long term. If confirmed, I will continue to 
seek to better manage costs by building a shared Joint Force commitment 
to behaviors that promote health and continuing to look for savings 
where practical. We may also need to increase constituent participation 
in paying for this system. Given today's budget environment, it is 
critical that we find an acceptable compromise to reduce costs while 
maintaining the quality of care our personnel and veterans expect.
    Question. What reforms in infrastructure, benefits, or benefit 
management, if any, do you think should be examined in order to control 
the costs of military health care?
    Answer. We are continuing to look at fiscal year 2014 options that 
would slow the growth of health care costs while preserving its quality 
and range. We're looking at options such as facility consolidations and 
civilian-military personnel mix changes, as well as initiatives that 
increase cost-sharing with beneficiaries, such as increased co-pays and 
other fee adjustments. If confirmed, I will continue to review 
initiatives for controlling the costs of military health care while 
always keeping in mind the importance of providing quality service to 
our people.
                systems and support for wounded warriors
    Question. Servicemembers who are or have been wounded and injured 
in combat operations deserve the highest priority from their Service 
for support services, healing and recuperation, rehabilitation, 
evaluation for return to duty, successful transition from active duty 
when appropriate, and continuing support beyond retirement or 
discharge. Yet, as the revelations at Walter Reed Army Medical Center 
(WRAMC) in 2007 illustrated, the Services were not prepared to meet the 
needs of significant numbers of returning wounded servicemembers. 
Despite the enactment of legislation and continuing emphasis, many 
challenges remain, including a growing population of servicemembers 
awaiting disability evaluation.
    What is your assessment of the progress made to date by DOD, the 
Department of Veterans Affairs, and the Services to improve the care, 
management, and transition of seriously ill and injured servicemembers 
and their families?
    Answer. I feel we've made amazing progress in medical care over the 
last 12 years of war. We've achieved revolutionary medical advances, 
including joint battlefield surgical care, and advanced rehabilitation 
provided by the Department of Veterans Affairs. But we've been 
advancing more slowly in other areas, particularly those surrounding 
family and transition. We're making progress, but I recognize we have 
work to do. If I am confirmed, I will keep my focus on this critical 
area. My wife Mary has played a key role both by being active in 
finding ways to enhance care for our wounded warriors and their 
caregivers and in enhancing my own understanding of the problems we 
face.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. We will look to expand research and treatment through 
collaboration between the private medical research and healthcare 
sectors and our Centers of Excellence. Many of our Wounded Warriors 
have successfully returned to service through such programs. We must 
also continue to grow our day-to-day collaboration with the Department 
of Veterans Affairs. We are close to achieving our goal of 100 percent 
certified medical records accompanying a servicemember transitioning to 
the VA.
    Question. What are the weaknesses that need to be corrected?
    Answer. One key area for improvement is individual case management 
when a servicemember transitions from the Active Force to DOD retiree 
or eligible veteran status. Streamlining this process relies on a 
single electronic health record, to follow the servicemember through 
transition, and a single tracking tool for case management. Our 
communication across our bureaucracies continues to be an area of 
frustration. We also have more work to do in ensuring the best possible 
opportunities exist for our wounded warriors, to include jobs and 
continued care for their mental and physical disabilities.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. We need to continue our progress in tracking and assisting 
our wounded warriors and their caregivers, and in finding opportunities 
for meaningful employment, physical rehabilitation, and mental health. 
If confirmed, I will remain vigilant for new opportunities to help 
these American heroes, especially when and where they are frustrated by 
bureaucratic issues.
    Question. Studies conducted as a result of the revelations at WRAMC 
pointed to the need to reform the disability evaluation system (DES). 
The Integrated Disability Evaluation System (IDES) was established to 
integrate the DOD and Department of Veterans Affairs disability systems 
to improve and expedite processing of servicemembers through the 
disability evaluation system.
    What is your assessment of the need to further streamline and 
improve the DES?
    Answer. I support the recommendations of Senator Dole's and 
Secretary Shalala's commission, to regain patient focus within each 
department's core competencies. Otherwise, IDES has developed to its 
limit to have the separate processes operate as if unified. We have 
recently made progress in this area by setting--and nearly achieving--a 
goal of having 100 percent certified complete medical records for 
transitioning servicemembers.
    Question. If confirmed, how will you address any need for change?
    Answer. If confirmed, I will continue to work to accelerate 
transition and disability processing within the bounds of the law, 
principally by working to ensure no bottlenecks exist on the DOD side 
of the equation. Our governance process improvements with the VA are 
integral to streamlining the process.
             suicide prevention and mental health resources
    Question. The numbers of suicides in each of the Services continues 
to concern the Committee.
    In your view, what role should the Joint Chiefs of Staff play in 
shaping policies to help prevent suicides both in garrison and in 
theater and to increase the resiliency of all servicemembers and their 
families, including members of the Reserve components?
    Answer. In general, preventing suicides falls under the Service 
Secretaries' and Service Chiefs' title 10 responsibilities. However, 
the Joint Chiefs must collectively approach the critical issue of 
military suicides with the same urgency we have given to protecting the 
lives of our men and women in combat. One way to do this is through 
shared understanding among the Services--which the Joint Chiefs can and 
will promote, similar to sharing best practices regarding prevention of 
sexual assault. The Department continues to work across the interagency 
and the White House to better understand the factors leading to 
suicide, and to ultimately enable all our Veterans and their families 
to enjoy the future they have sacrificed so much to secure.
    Each of the Services has a comprehensive suicide prevention program 
dedicated to evaluating the impact on force readiness, informing senior 
leaders, and providing guidance and oversight for program 
implementation. The Department currently has a number of programs in 
place designed to build resilience, provide adequate mental health 
resources, increase help-seeking behaviors, and offer a variety of 
additional services aimed at helping servicemembers deal effectively 
with stressors.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to the servicemembers and their families upon return to 
home station?
    Answer. If confirmed, I will work in concert with the Service 
Chiefs to maintain, and increase where needed, effective treatments for 
mental health issues, traumatic brain injury, and combat stress. The 
extensive behavioral health resources already available to our forces 
in Afghanistan represent an important foundation upon which we will 
continue to build. I will also continue to support service efforts to 
remove lingering stigmas or barriers to treatment for servicemembers 
and their families. We will ensure commanders encourage seeking help by 
highlighting examples of servicemembers who have benefitted from mental 
health assistance or counseling.
                        military quality of life
    Question. The committee is concerned about the sustainment of key 
quality of life programs for military families, such as family support, 
child care, education, employment support, health care, and morale, 
welfare and recreation services, especially as DOD faces budget 
challenges.
    If confirmed, what further enhancements, if any, to military 
quality of life programs would you consider a priority in an era of 
intense downward pressure on budgets, and how do you envision working 
with the Services, combatant commanders, family advocacy groups, and 
Congress to achieve them?
    Answer. If confirmed, I will continue to support essential areas, 
such as mental health counseling, fitness, child care, and spouse 
employment. I believe we can sustain a reasonable level of essential 
services only if we continue to reduce overlaps and seek other 
efficiencies in the way we apply our declining resources. However, we 
also need to provide security to the Nation and sustain the quality of 
the All-Volunteer Force. The entire military enterprise is under 
scrutiny. We can only achieve balance and priority through honest 
discussion and tough choices regarding which Services foster successful 
recruitment, retention, and career progression while achieving fiscal 
sustainability for the military of the 21st century.
                      family readiness and support
    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families?
    Answer. According to recent surveys, military families are most 
concerned about pay and benefits and retirement. DOD engages military 
families on this issue via the Pay and Retirement Working Group. The 
working group's input is addressed through the Military Compensation 
and Retirement Modernization Executive Committee.
    Question. If confirmed, how would you ensure that family readiness 
needs are addressed and adequately resourced?
    Answer. If confirmed, I will continue to place military family 
needs among my highest priorities. We must examine every warrior and 
family support program to ensure that we target funding at the most 
impactful programs and reduce duplicative efforts. To do so, we will 
continue current studies with DODEA, DECA, and a number of university 
partnerships that are focused on best practices and the return on 
investment of existing programs.
    Among these efforts, we must also include the restructuring of 
medical facilities to make them more efficient, without sacrificing 
quality or continuity of care.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and future reductions in end 
strength?
    Answer. If confirmed, I will continue to work with the Services to 
meet the changing needs of our military families. The Joint Staff is 
building--with the White House and the Services--sustainable community-
based partnerships and initiatives that improve education, employment, 
and wellness support for current and transitioning members.
    DOD has also adjusted force size and rotation, redoubled transition 
support, and invested in world-class health care for our families. This 
includes: (1) fielding effective treatments for mental health issues, 
traumatic brain injury, and combat stress; and (2) continuing the 
effort to reduce the stigma of service and family members seeking 
mental health services.
    Question. If confirmed, how would you ensure support is provided to 
Reserve component families related to mobilization, deployment and 
family readiness, as well as to active duty families who do not reside 
near a military installation?
    Answer. We must ensure that every family has access to quality 
resources, regardless of component or location. Current efforts include 
the Services' effort to leverage: (1) public/private partnerships 
within the communities; and (2) the State Joint Force Headquarters of 
the National Guard to help members access child care, mental health 
services, and employment opportunities. If confirmed, I will continue 
my support of these critical efforts.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. If confirmed, I will continue to advocate for the Services 
caring for our families. Today, Family Support Working Groups, Resource 
Management Decision Working Groups, and other venues are actively 
attempting to ensure program effectiveness, share best practices, and 
reduce duplication of efforts. America's citizens have also stepped 
forward--from the local to the national level, thousands of 
organizations, higher learning institutions, and businesses have 
partnered to support our Military Family. However, there will always be 
new ideas and initiatives to enhance family support. I will be most 
interested in those with high leverage that provide dramatically 
enhanced support without further deepening our fiscal crisis.
                         counter threat finance
    Question. Identifying and disrupting key individuals, entities, and 
facilitation routes enabling the flow of money that supports terrorism, 
production of IEDs, narco-trafficking, proliferation, and other 
significant national security threats could have an outsized impact on 
confronting these threats. In August 2010, the Department issued a 
Counter Threat Finance (CTF) Policy Directive which recognized the CTF 
discipline as an essential tool in combating criminal networks and 
terrorist organizations and called for the integration of CTF 
capabilities into future force planning and the continued support to 
interagency partners conducting CTF operations.
    What is your assessment of the Department's efforts to date to 
institutionalize and support these capabilities?
    Answer. We learned the importance of CTF through our success in 
Iraq and Afghanistan with the Threat Finance Cells. Identifying and 
upsetting financial supply lines are a proven means of disrupting 
threats to U.S. national security. DOD Directive 5205.14 (CTF), which 
was updated in November 2012, drives the institutionalization of CTF 
within DOD.
    Threat Finance Cells--which are comprised of intelligence, law 
enforcement, and defense personnel--play a supporting role in 
identifying insurgent, criminal, and terrorist finances; disrupting 
front companies; developing actionable financial intelligence; 
freezing/seizing illicit funds; and building criminal cases. 
Ultimately, success in CTF will depend on DOD's continued ability to 
integrate with, support, and complement other U.S. Government, 
multinational, and host nation activities.
    Question. What is your assessment of the current ability of the 
Department to provide support to other U.S. Government departments and 
agencies conducting counter threat finance activities?
    Answer. DOD currently supports the interagency with its unique 
capabilities, including long-term planning, network analysis, 
intelligence analysis and tools, and the integration of intelligence 
into operations. The result is a well-coordinated, capable and robust 
CTF posture. If confirmed, I do not anticipate an immediate need to 
expand the support that DOD is providing, but we will continue to 
remain fully engaged in the interagency process to counter threat 
finance activities.
    Question. What changes, if any, would you recommend to DOD's 
current counter threat finance efforts?
    Answer. The Department is examining its current counter threat 
finance efforts and identifying ways to strengthen it, incorporate 
lessons learned from Iraq and Afghanistan, and further institutionalize 
DOD's capability. Possible recommendations may include further training 
and education for the force. However, budget reductions will likely 
make it difficult to significantly expand this program.
                       law of the sea convention
    Question. You have previously expressed your support for U.S. 
accession to the United Nations Convention on the Law of the Sea.
    Do you still believe that the United States should join the Law of 
the Sea Convention, and, if so, why?
    Answer. Yes. I support the United States acceding to the Law of the 
Sea Convention. My career as a Naval Officer intermixed with joint 
tours drives home the importance of this orderly set of laws governing 
activity on the sea--a set of rules that benefit our maritime nation 
greatly. Our accession would increase our credibility and influence in 
defending the Convention's existing norms that enable the access, 
mobility, and sustainment of our military forces and commercial fleet. 
Our non-party status detracts from our ability to lead developments in 
the maritime domain, and enables emerging powers to advance their 
contrary interpretations of the Convention. As the global security 
environment changes, it will become increasingly important for the 
United States, as the world's foremost maritime power, to use all 
elements of national power and lead from inside the framework of the 
Convention rather than observe from the outside.
                         treatment of detainees
    Question. The Constitution, laws, and treaty obligations of the 
United States prohibit the torture or cruel, inhuman or degrading 
treatment or punishment of persons held in U.S. custody.
    If confirmed, will you take steps to ensure that all relevant DOD 
directives, regulations, policies, practices, and procedures applicable 
to U.S. forces fully comply with the requirements of section 1403 of 
the Detainee Treatment Act and with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes. If confirmed, I would continue to take steps to ensure 
that all relevant DOD directives, regulations, policies, practices, and 
procedures applicable to U.S. forces fully comply with the requirements 
of section 1403 of the Detainee Treatment Act and with Common Article 3 
of the Geneva Conventions of 1949.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes. I support the standards for detainee treatment 
specified in the Army Field Manual on Interrogations and in DOD 
Directive 2310.01E.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Vice Chairman of the Joint 
Chiefs of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
  navy intelligence, surveillance, and reconnaissance transition plan
    1. Senator Nelson. Admiral Winnefeld, section 112 of the National 
Defense Authorization Act (NDAA) for Fiscal Year 2011 directs the Navy 
to sustain and continue to upgrade its manned airborne intelligence, 
surveillance, and reconnaissance (ISR) fleet until it commences 
fielding a platform or mix of platforms that provide equal or greater 
capability. The law directs the Vice Chairman of the Joint Chiefs of 
Staff and the Under Secretary of Defense for Intelligence (USD(I)) to 
certify annually that the Navy remains in compliance and is supporting 
the needs of the combatant commanders. The Navy has certified 
compliance. In the President's budget request, the Navy plans to 
gradually draw down its aging EP-3E and P-3 Special Projects Aircraft 
over the period of fiscal years 2016-2018 as part of a maritime ISR 
transition plan that will field a fleet of MQ-4C Triton unmanned aerial 
vehicles (UAV). I understand the Secretary of the Navy is supportive of 
this transition. Have you spoken to the combatant commanders to confirm 
if these ISR capabilities fulfill their requirements?
    Admiral Winnefeld. Combatant commanders requests for ISR always 
exceed our capacity to provide. However, regarding capability, the 
combatant commanders contributed to the Navy's MISR&T Transition Plan 
through the Battlespace Awareness Joint Capabilities Board. The 
combatant commanders understand and support how we are optimizing the 
Navy's ``high-demand, low-density'' ISR capability.

    2. Senator Nelson. Admiral Winnefeld, is the Navy effectively 
managing the ISR platform transition?
    Admiral Winnefeld. Yes. Dr. Vickers and I, along with Joint Staff 
and representatives from the combatant commands, carefully reviewed 
Navy's current ISR capabilities and proposed way ahead. We have 
certified Navy's plan each of the past 2 years. Such review is critical 
because, while the EP-3E ARIES and P-3 Special Projects Aircraft (SPA) 
have been workhorses for the Navy and Joint Force for decades, they're 
fast approaching end-of-service life (approximately 2020).
    To mitigate short-term risk, the Navy is sustaining the 
capabilities of both the EP-3E and P-3 SPA aircraft while fielding the 
baseline Triton UAV with its greatly improved persistence. They are 
also adding a Quick Reaction Capability, which provides certain ``SPA-
like'' capabilities, to the P-8A aircraft. Proper phasing of manpower 
is critical to ensure transition of capability and capacity to follow-
on platforms, without impacting combatant commanders.
    The Navy's plan, as part of a joint effort, invests in the right 
platform/sensor mix and is in the best interests of the Joint Force, 
particularly in our current budgetary environment. However, additional 
requirements, particularly those in the NDAA for Fiscal Year 2014 draft 
language requiring the sustainment of five EP-3Es for allocation, that 
limit the Navy's ability to execute this plan may draw resources that 
impede fielding of the appropriate future force. Dr. Vickers and I will 
continue to monitor Navy's progress closely.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                     readiness and flying hour cuts
    3. Senator Inhofe. Admiral Winnefeld, due to a recently approved 
reprogramming, the Air Force was able to move $208 million into flying 
hour funds. Why couldn't DOD do this before April 9, 2013? Was it due 
to a lack of flexibility in moving funds within the DOD budget?
    Admiral Winnefeld. Yes, both the NDAA and fiscal year 2013 enacted 
budgets were 3 and 6 months late respectively, which resulted in a 6 
month Continuing Resolution that limited our flexibility (transfer 
authority) to move money between major budget categories and into 
flying hour funds. The Air Force's limited Operations and Maintenance 
transfer authority of $15 million was insufficient to restore any 
reasonable portion of the $591 million flying hour reduction resulting 
from sequestration in fiscal year 2013. Consequently, the lack of 
flexibility and reduction in Operations and Maintenance funds resulted 
in the Air Force grounding some flying squadrons on April 9, 2013. The 
reprogramming action completed in July gave the Air Force the authority 
to shift $1.6 billion from other appropriations into critical 
Operations and Maintenance funds to minimize the impact on readiness, 
$208 million of which was applied towards the Air Force flying hour 
program.

    4. Senator Inhofe. Admiral Winnefeld, I believe DOD was short 
approximately $11 billion in overseas contingency operations (OCO) 
funding and has requested that $9.6 billion be reprogrammed from the 
base budget. If DOD received full funding for overseas contingency 
operations, what impact would that have had on DOD operations and 
readiness as a whole, to include Air Force flying hours?
    Admiral Winnefeld. The President's fiscal year 2013 OCO budget 
fully funded wartime operations based on our best estimates 2 years 
ago. However, during execution of the fiscal year 2013 budget in the 
spring of 2013, the Department identified a shortfall of between $7-$10 
billion, conservatively, in OCO funds due to a combination of 
sequestration reductions against both the Base and OCO operation and 
maintenance budgets and higher than forecasted wartime operating costs, 
including fuel, retrograde transportation, etc.
    To ensure we could properly conduct wartime operations and to help 
minimize some of the devastating impacts to base budget readiness, the 
Department requested $9.6 billion in reprogramming authority from 
Congress. Because it was unclear how much of the reprogramming action 
would be approved, the Services continued scrutinizing their budget 
activities to find additional resources to address the funding 
shortfall. Ultimately, Congress approved the majority of the requested 
fiscal year 2013 reprogramming actions, allowing the Department to 
appropriately fund wartime operations and mitigate a portion of the 
impacts to readiness in the Air Force Flying Hour Program. Ultimately, 
the curtailed readiness activities will have a cumulative effect in 
fiscal year 2014, which will be amplified with further sequestration.

    5. Senator Inhofe. Admiral Winnefeld, how many additional hours 
will have to be dedicated to bring all these units and its aircrews 
back up to mission-ready status?
    Admiral Winnefeld. As of today, there are 18 squadrons in the Air 
Force still flying at reduced levels of readiness. An additional 7,000 
flying hours at a cost of $116 million above the PB14 request and 3-6 
months would be necessary to bring these remaining 18 squadrons from 
current (lower than Basic Mission Capable) flying rates back to pre-
sequester mission status (Combat Mission Ready flying rates).
    Prior to sequestration, a substantial number of Air Force squadrons 
were already operating at lower than optimal goals due to previous 
Budget Control Act (BCA) reductions and the effects of long-term high 
operations tempo. On 9 April, a total of 31 squadrons were stood down, 
including 13 combat-coded (fighter, bomber, and Airborne Warning and 
Control System (AWACS)) units and 18 institutional units (Weapons 
School, Aggressors, Thunderbirds, etc.). Through efficiencies and the 
$208 million from the DOD reprogramming request, the Air Force was able 
to shift funds and increase the flying rates of the 13 combat coded 
units back to Combat Mission Ready (CMR) rates for the remainder of 
fiscal year 2013. It will take 3-6 months at this CMR rate before these 
squadrons return to pre-sequestration mission ready rates. The 
efficiencies and reprogramming also allowed the remaining 18 
institutional units to resume flying, albeit lower than Basic Mission 
Capable (BMC) rates.
    The Air Force will continue to have readiness challenges due to the 
BCA and sequestration, beyond the units that were stood down. To bring 
all Air Force flying squadrons back to full mission readiness goals 
needed to meet Defense Strategic Guidance requirements, it would take 
approximately 2 years, an additional $3.2 billion per year in fiscal 
year 2014 and fiscal year 2015, and a reduction in current deployment 
tempo (e.g. deploy-to-dwell at 1:3 or better).

    6. Senator Inhofe. Admiral Winnefeld, how much will that cost?
    Admiral Winnefeld. As of today, there are 18 squadrons in the Air 
Force still flying at reduced levels of readiness. An additional 7,000 
flying hours at a cost of $116 million above the PB14 request and 3-6 
months would be necessary to bring these remaining 18 squadrons from 
current (lower than Basic Mission Capable) flying rates back to pre-
sequester mission status (Combat Mission Ready flying rates).
    Prior to sequestration, a substantial number of Air Force squadrons 
were already operating at lower than optimal goals due to previous 
Budget Control Act (BCA) reductions and the effects of long-term high 
operations tempo. On 9 April, a total of 31 squadrons were stood down, 
including 13 combat-coded (fighter, bomber, and AWACS) units and 18 
institutional units (Weapons School, Aggressors, Thunderbirds, etc.). 
Through efficiencies and the $208 million from the DOD reprogramming 
request, the Air Force was able to shift funds and increase the flying 
rates of the 13 combat coded units back to Combat Mission Ready (CMR) 
rates for the remainder of fiscal year 2013. It will take 3-6 months at 
this CMR rate before these squadrons return to pre-sequestration 
mission ready rates. The efficiencies and reprogramming also allowed 
the remaining 18 institutional units to resume flying, albeit lower 
than BMC rates.
    The Air Force will continue to have readiness challenges due to the 
BCA and sequestration, beyond the units that were stood down. To bring 
all Air Force flying squadrons back to full mission readiness goals 
needed to meet Defense Strategic Guidance requirements, it would take 
approximately 2 years, an additional $3.2 billion per year in fiscal 
year 2014 and fiscal year 2015, and a reduction in current deployment 
tempo (e.g. deploy-to-dwell at 1:3 or better).

    7. Senator Inhofe. Admiral Winnefeld, what happens to these units 
on October 1, 2013, when sequestration hits again?
    Admiral Winnefeld. Given the nature of the cuts in fiscal year 
2013, we had no flexibility in managing squadron readiness. If 
sequester hits in fiscal year 2014, we will be able to rotationally 
stand-down units, or fly them at reduced rates, similar to actions we 
took in fiscal year 2013. The net effect of cuts spread over the full 
fiscal year versus just 7 months will lead to readiness levels slightly 
higher than under sequester in fiscal year 2013, but still well below 
pre-sequester--and already sub-optimal--readiness levels. This will 
significantly erode our training and force development efforts, and 
increase risk in our ability to fill OPLAN and the Secretary of Defense 
ordered missions.

    8. Senator Inhofe. Admiral Winnefeld, in your professional military 
opinion, what are the military options that could best accomplish 
changing the balance of military power between the Assad regime and the 
armed opposition without boots-on-the-ground, assuming: (1) vetted 
rebels are provided with light arms and anti-tank weapons and training; 
(2) no kinetic action against Syrian integrated air defense system; (3) 
limited strikes in Syria would be allowed as would flight into Syrian 
airspace; (4) airstrikes would last no more than 2 weeks; (5) 
collateral damage to civilians is to be minimized. Under those 
parameters, assuming legal justifications were in place: (1) what could 
you accomplish in terms of altering the balance of military power; (2) 
what lines of military effort would you recommend; (3) what are the 
risks associated with those lines of effort; and (4) what is the cost 
of your recommended course(s) of action? Please provide an assessment 
of the impact on your ability to handle an Iranian conflict following 
such an action.
    Admiral Winnefeld. Within the framework and the constraints and 
objectives articulated above, there are military options available, 
which we have fully briefed to the national security staff.
    At the unclassified level, these options would include strikes with 
standoff weapons on key Syrian Regime infrastructure, logistics nodes, 
and combat forces command and control nodes that could degrade regime 
forces. Striking attack helicopters on their ramps with standoff 
weapons would have an important impact on regime close air support 
capability, though the locations of those helicopters varies. Contrary 
to what some have suggested, although fixed wing tactical aircraft are 
being used by the regime against the opposition, they are not the 
principal firepower element being used to target the opposition. For 
this reason, striking runways, again as some have suggested, is not an 
optimal use of expensive standoff weapons, to say nothing of the fact 
that the regime would rapidly repair runway damage and resume 
operations. While the above strikes would have an effect on the balance 
of military power, they are not likely to be decisive.
    Rather, the regime is primarily targeting the opposition through 
artillery and rocket attacks and ground forces operations. We believe 
that suppressing these attacks would require a campaign that would 
roll-back certain (though not necessarily all) elements of the 
integrated air defense system and subsequently enable a campaign 
against Assad's ground forces. Details of such a campaign would be 
classified, but such a campaign is feasible. Contrary to depictions of 
our prior responses as involving a massive campaign, this would not 
require enormous resources, but would require a moderate number of ISR, 
tactical aviation and traditional support aircraft such as tankers, 
AWACS and personnel recovery resources, as well as regional bases and 
defenses for those bases. Principal risks to this approach would be: 
(a) the risk of retaliation from Syria against regional partners and 
U.S. bases within those countries; and (b) the risk to U.S. aircraft 
from mobile surface-to-air missile systems.
    To effect a positive and longstanding result, U.S. support should 
contribute to enabling a substantial number of moderate opposition 
fighters over an extended period of time. Such an endeavor to build a 
moderate opposition force capable of defeating regime forces and 
consolidating and holding territory would require at least 2 years. 
This extended large-scale train and equip effort is probably the wisest 
course of action; however, it is not without substantial obstacles. 
Preferably, strikes would be deferred until an opposition force is 
capable of maintaining and exploiting at least some of the gains 
provided by the strikes.
    The two options outlined above could complement one another and 
cause the balance of military power to shift. However, we believe it is 
unrealistic to expect this shift to occur rapidly. Both sides are in an 
existential struggle for survival, and have demonstrated considerable 
resiliency. We are concerned that some consider such a campaign to be 
easy. Once the first 2 weeks pass without a clear solution to the 
conflict, there would most certainly be an appetite for more action. 
Thus, we need to understand that the United States would likely be 
drawn into a protracted conflict, and would need to be prepared for the 
expense and follow-on actions in a post-Assad Syria that would likely 
be demanded.
    Finally, we need to be prepared to fund either or both options. Our 
initial estimate for a train and equip mission is in the hundreds of 
millions dollars per year. The cost of the strikes depends on the 
number of munitions expended, but costs would start in the tens of 
millions and could easily increase to hundreds of millions.
    Regarding Iran, we are currently postured to respond to 
contingencies in the Gulf and we monitor Iranian actions very closely. 
If action against Iran were sequential to action in Syria, we would use 
forces already anticipated for such a conflict. If such action were to 
occur in parallel, some of the forces we would deploy would not be at 
optimal levels of readiness.

    9. Senator Inhofe. Admiral Winnefeld, assuming you were given the 
constraint of no U.S. boots-on-the-ground and to minimize collateral 
damage, without kinetically taking out the Syrian integrated air 
defense system, what limited U.S. military options could change the 
balance of military power between Assad and the armed opposition? I am 
looking for an option that falls between doing nothing and doing a no-
fly-zone over Syria. In your professional military opinion, do you 
think we should do any of these options?
    Admiral Winnefeld. Two contributions to the contest in Syria could 
most effectively change the balance of power between President Assad 
and the armed opposition.
    The first is to train and equip an opposition force that can 
competently fight in this war. This can and should be conducted outside 
Syria in a neighboring state. I am in favor of expanding this effort.
    The second is to conduct operations to begin a campaign to attrite 
the forces that are causing the most damage to the opposition; namely 
artillery and rockets launched by Syrian regime forces, followed 
closely by attack helicopters. To be sure, attacking command and 
control nodes and fixed wing aircraft would have an impact, but not a 
decisive impact. Thus, I do not believe that merely cutting runways, as 
some have suggested, or hitting fixed wing tactical or transport 
aircraft on the ground will turn the tide. We have learned this before 
in places like Libya and Serbia, where a considerable level of effort 
was required to shift events on the ground in favor of an opposition 
force. This is serious business, and merely launching a few Tomahawk 
Land Attack Missiles into Syria hoping to turn the tide of this war 
will not accomplish that objective.
    Rather, it would make more sense to execute a campaign that would 
take out the above-mentioned most effective regime forces (artillery, 
rockets, and attack helicopters). The details of such a campaign would 
be classified, but it would generally involve removing the most 
important elements of the IADS and gradually eliminating the forces 
that most threaten opposition elements.
    My role is to provide advice on how, not whether, to use force. 
However, I believe such an operation would only be advisable under a 
satisfactory combination of the following factors: the level of U.S. 
interest at stake justifies the use of force; the contemplated action 
is deemed legal under domestic and international law; such a legal 
basis would not invite unwelcome similar action from parties elsewhere; 
the outcome of such action would result in decisive effects for a force 
that clearly shares our interests; an executable and affordable plan 
exists for what would follow such action; financial support is 
obtainable from Congress, if required; and no other contingencies of 
greater importance than instability in Syria are imminent.

    10. Senator Inhofe. Admiral Winnefeld, Assad uses airfields to 
receive weapons and troops from Iran, move Syrian army troops around 
the country, resupply those troops, and conduct airstrikes against the 
opposition. Do these airfields represent a strategic vulnerability?
    Admiral Winnefeld. The airfields do represent one of several 
strategic vulnerabilities, but these airfields are not the regime's 
center of gravity. Degrading Assad's airfields would hinder the regime 
but probably not shift the balance of power decisively in favor of the 
opposition. Moreover, degrading airfields is an expensive and 
frustrating business, in which cratered runways are repaired quickly 
and damaged fuel farms are replaced by trucks carrying fuel.
    Artillery, rockets, and, to a lesser degree, attack helicopters are 
principal forces hindering opposition progress in threatening the 
regime. Thus, I would view those forces as a more important strategic 
vulnerability than airfields.

    11. Senator Inhofe. Admiral Winnefeld, could a limited strike, 
using standoff weapons and stealth aircraft, crater major runways, 
making them unusable for the Assad regime?
    Admiral Winnefeld. The U.S. military has the capability to crater 
Syrian runways, but only at great expense. Cratering all the runways at 
a representative airfield in Syria would require 50-70 TLAM missiles. 
However, these runways would only be unusable for several days before 
they are repaired. Moreover, Russian-built aircraft are especially 
adept at operating off rough airfields, including those that have been 
cratered and rapidly repaired. Finally, cratering runways does little 
or nothing to impact attack or logistics helicopter operations.

    12. Senator Inhofe. Admiral Winnefeld, would we have to bomb the 
Syrian integrated air defense to do a limited stealth and standoff 
weapons attack?
    Admiral Winnefeld. The U.S. military can conduct a limited stealth 
and standoff weapons attack without bombing Syrian integrated air 
defenses. The question is whether such an attack would be decisive in 
turning the tide in favor of the opposition. Such an attack could 
achieve a limited objective, such as deterring future use of chemical 
weapons, but it would not alone shift the tide of the war, as we have 
seen in several other cases (such as Serbia and Libya).

    13. Senator Inhofe. Admiral Winnefeld, how would the movement of 
Russian
S-300 surface-to-air missile systems into Syria affect military 
options?
    Admiral Winnefeld. The S-300 is a modern surface-to-air missile 
system that, if procured by Syria, would be their most advanced 
surface-to-air weapon. The
S-300 would significantly increase the risk to any U.S. aircraft or 
cruise missiles flying within its engagement zone.

    14. Senator Inhofe. Admiral Winnefeld, after letting the Taliban 
raise the flag and the country name they used when they governed 
Afghanistan on the political office the United States helped arrange in 
Doha, Qatar, the Afghan people and President Karzai were understandably 
upset. Are the chances for a U.S.-led peace process, or reconciliation 
process, dead?
    Admiral Winnefeld. While the reconciliation process in Afghanistan 
has thus far been exceedingly complex and challenging, is has not 
stopped moving forward. It remains an important element of fostering 
stability in Afghanistan. We will continue to support our Afghan 
partners in their efforts to meet with the Taliban and reach a 
political settlement that provides peace and security for the people of 
Afghanistan.

    15. Senator Inhofe. Admiral Winnefeld, are we forcing this issue 
and doing more harm than good?
    Admiral Winnefeld. A reconciliation process inevitably introduces 
additional complexity into internal conflict in any nation, as well as 
uncertainty among the elements making up both sides of the conflict. 
There will be both progress and setbacks along the way in any such 
negotiation process. Afghanistan is no exception. Nonetheless, a 
political solution has been required to end most insurgencies (witness 
the ongoing process in Colombia), and we support reconciliation as a 
part of the end game solution in Afghanistan. The Department of State 
is taking the necessary measured steps to support the peace process. A 
reconciled Afghanistan is in the best interest of all parties involved. 
President Karzai acknowledges this, and continues to encourage the 
peace process, albeit on his terms.

    16. Senator Inhofe. Admiral Winnefeld, in your military opinion, 
what is the troop level at which the United States and international 
troops can only do force protection and no other mission? In other 
words, at what troop level is the military only able to protect itself?
    Admiral Winnefeld. Troop numbers in combat are not only based on 
troop-to-task but also the threat environment. Current plans call for a 
NATO train, advise and assist mission and a separate U.S. 
counterterrorism mission. Our force protection posture will be designed 
to protect the force conducting these missions, as well as any 
supporting U.S. forces. Based on our current threat assessment, our 
planning consideration allocates approximately 40 percent of the 
deployed servicemembers to force protection.

                       key performance parameters
    17. Senator Inhofe. Admiral Winnefeld, please list examples of 
where changes you have helped institute in the military's requirements 
process through the Joint Requirements Oversight Council (JROC) has 
been successful.
    Admiral Winnefeld. Examples of successes from changes made to the 
JROC and JCIDS process include:

        <bullet> F-35: Addressed service concerns with Key Performance 
        Parameters (KPPs) for all variants and reduced performance 
        threshold values associated with combat radius and short 
        takeoff distance, saving money without compromising required 
        performance for the warfighter.
        <bullet> Ground Combat Vehicle/Amphibious Combat Vehicle (GCV/
        ACV): Directed an assessment of commonalities, which confirmed 
        the requirement for different base vehicles and identified a 
        number of technical areas where commonality could potentially 
        provide measurable cost savings.
        <bullet> Long-Range Strike-Bomber (LRS-B): From the initiation 
        of the Initial Capabilities Document (ICD) and Capabilities 
        Development Document (CDD), the JROC reviewed and approved both 
        in less than 30-days--typically would have run 6-months 
        minimum.
        <bullet> Unmanned Carrier Launched Airborne Surveillance and 
        Strike System (UCLASS): Re-examined the operational concept of 
        deploying UCLASS which resulted in requirements trades from the 
        previously approved ICD and eventual CDD.
        <bullet> 3 Dimensional Expeditionary Long Range Radar-Ground/
        Air Task Oriented Radar (3DELRR-G/ATOR): Reviewed potential 
        overlapping requirements for service-specific radar 
        capabilities. Analysis enabled 3DELRR to proceed with reduced 
        performance threshold values and to meet cost and schedule 
        targets.
        <bullet> Conventional Prompt Global Strike (CPGS): Reassessed 
        CPGS ICD which resulted in substantial cost savings by making 
        acceptable technology development and performance tradeoffs.
        <bullet> Global Positioning Satellite Modernization AoA: 
        Reviewed and confirmed that the existing program of record 
        satisfies combatant command requirements. Avoided substantial 
        expenditure aimed at achieving unnecessary performance 
        improvements.
        <bullet> Air and Missile Defense Radar (AMDR): Reduced 
        performance threshold values to ensure the system would not 
        require new hosting platform development while still providing 
        improvements to current capabilities.
        <bullet> Armored Multi-Purpose Vehicle (AMPV): After validation 
        of the CDD, industry engagement resulted in KPP change 
        proposals that adequately addressed the identified capability 
        requirements while meeting or exceeding affordability targets.
        <bullet> Family of Advanced Beyond Line-of-Sight Terminals 
        (FAB-T): Reviewed the CDD and approved revisions to both the 
        Initial Operational Capability definition and several KPPs.
        <bullet> Apache Block III: Reviewed and approved revisions to 
        Capability Production Document KPPs to include Net Ready-
        related specified solutions and engine performance to account 
        for engine wear over the duration of the program.

    18. Senator Inhofe. Admiral Winnefeld, in addition, what other 
reform initiatives such as this are you working on?
    Admiral Winnefeld. Other recent and future JROC and JCIDS 
initiatives include:

        <bullet> Key Performance Parameter Relief (JROCM 015-13): 
        Intended to encourage acquisition managers, in coordination 
        with the appropriate requirements sponsors, to officially 
        request requirements relief where KPPs appear out of line with 
        an appropriate cost-benefit analysis. This has resulted in 
        increased descoping actions such as in AMPV above, JMS, and 
        Apache Block III.
        <bullet> I initiated Quarterly Leadership Forums between 
        myself, USD(AT&L), and D/CAPE to ensure continued coordination 
        and alignment between requirements, acquisition, and 
        resourcing.
        <bullet> We are reviewing and updating JROC and JCIDS guidance 
        documents based on lessons learned and opportunities to further 
        improve the process. Additionally, we are working closely with 
        AT&L as they update the DODI 5000.02 (Operation of the Defense 
        Acquisition System).

                          u.s. africa command
    19. Senator Inhofe. Admiral Winnefeld, what is your threat 
assessment of U.S. Africa Command's (AFRICOM) area of responsibility--
is the threat growing, stabilized, or receding?
    Admiral Winnefeld. [Deleted.]

    20. Senator Inhofe. Admiral Winnefeld, do you believe we have the 
forces in place in U.S. European Command (EUCOM) and AFRICOM to be able 
to both remain engaged in Africa and respond, if necessary, to threats 
as they evolve?
    Admiral Winnefeld. DOD is prepared to respond to threats and crises 
as they arise while remaining engaged in AFRICOM and EUCOM.
    AFRICOM forces remain engaged in priority missions such as 
countering violent extremist organizations and partnership building 
within Africa, in accordance with the President's priorities for the 
continent. Meanwhile, we have taken a number of steps to be better 
prepared for crisis operations, particularly in Northern Africa. For 
example, the Marine Corps has resourced additional Marine Security 
Guard (MSG) Detachments to meet regional threats and address Department 
of State security concerns. While relieving an embassy under attack is 
highly complex, we also maintain Marine FAST platoons and other forces 
in the region to be able to rapidly reinforce an embassy in advance of 
a problem. Among these forces is a dedicated Special Marine Air Ground 
Task Force-Crisis Response in Spain capable of quickly responding to a 
variety of threats in Africa or Europe.
    DOD has also developed and adopted rules that will allow force 
sharing between combatant commands for brief durations to ensure rapid 
response in the event of a crisis. DOD and the State Department work 
together to ensure that high risk facilities are properly secured with 
DOD support, as required. Finally, DOD monitors specified crisis 
response forces throughout the world and makes adjustments to position 
and posture forces based on threat requirements.

    21. Senator Inhofe. Admiral Winnefeld, do you believe we have 
dedicated enough intelligence assets to the continent of Africa?
    Admiral Winnefeld. [Deleted.]

    22. Senator Inhofe. Admiral Winnefeld, what is you assessment of 
combining AFRICOM with EUCOM?
    Admiral Winnefeld. Assigning combatant commands under the current 
structure has led to productive engagement, planning, and operations in 
the respective areas of responsibility. However, depending on the 
magnitude of budget cuts to DOD, we may need to consider combatant 
command consolidations among a number of other difficult staff 
consolidation and reduction decisions. Combining AFRICOM and EUCOM 
would be one of several options we would consider.

                   f-35 joint strike fighter program
    23. Senator Inhofe. Admiral Winnefeld, what is your assessment of 
the F-35 program?
    Admiral Winnefeld. One of the Department's top priorities is to 
ensure the success of the F-35 development program and achieve a stable 
design that will permit increased and more economical production rates. 
The President's fiscal year 2014 budget request includes a total of 
$8.3 billion for continued system development ($1.8 billion) and 
procurement ($6.5 billion) of an additional 29 F-35 aircraft. To ensure 
the F-35 maintains its effectiveness against continually evolving 
threats, this request also includes resources to deliver advanced 
weapons and sensors to the F-35 fleet in the years following Initial 
Operational Capability (IOC).
    To date, the Department has accepted close to 70 aircraft from the 
production line which are undergoing test activities at NAS Patuxent 
River and Edwards Air Force Base (AFB) while the Air Force and Marine 
Corps are training pilots and maintainers at Eglin AFB. In addition, 
the Marine Corps activated the first operational F-35 squadron last 
fall at MCAS Yuma, AZ and is currently accepting deliveries of F-35B 
STOVL aircraft as part of a 16-aircraft squadron by September 2013. 
Moreover, the Services documented their IOC plans in a report to 
Congress in June, and the government recently reached agreement with 
the contractor for Low Rate Initial Production (LRIP) lots 6 and 7.
    While we have over 50 percent of the flight test program remaining 
and have a good deal of development to complete, including software and 
weapons integration, both the F-35 A and B completed the first lifetime 
(8,000 hours) of fatigue testing and will begin the second lifetime 
testing soon. Likewise, the F-35C is projected to complete the first 
lifetime this fall. While we remain fully committed to the program, our 
focus is on completing development, which will permit ramping up to 
increased economies of scale in production, and on getting support 
costs down.

    24. Senator Inhofe. Admiral Winnefeld, why do we need the F-35?
    Admiral Winnefeld. The F-35, as our primary air dominance platform, 
meets the National Security Strategy challenge of preparing for 
increasingly sophisticated adversaries and deterring and defeating 
aggression in anti-access environments. The F-35 will execute a broad 
range of missions against the most capable threats across the full 
spectrum of military operations. It will defeat increasingly 
sophisticated threat aircraft and air defenses to provide Joint Forces 
the freedom of action to conduct land, maritime and air operations. The 
F-35 capabilities will preserve our ability to precisely project power 
into distant, highly contested environments.
    The F-35 will form the backbone of U.S. combat airpower for decades 
to come. It will replace aging, legacy fighters from across the Air 
Force, Navy, and Marine Corps with a multi-role, fifth generation 
aircraft. It will achieve air dominance across multiple missions to 
include: offensive and defensive counter-air, suppression and 
destruction of enemy air defenses, and precision strike (e.g., air 
interdiction, strategic attack, and close-air support). It provides 
advanced capability in the following areas:

        - Survivability: detects, denies, and defeats sophisticated 
        threats.
        - Lethality: locates, identifies, intercepts, and destructs 
        enemy aircraft, missiles, land and sea forces.
        - Interoperability and Networking: enhances linked and 
        synchronized interoperability among the Services and our 
        international partners.
        - Computer Network Operations: protects own networks from enemy 
        attack and disrupts enemy networks.
        - Affordability: the program's tight focus on reducing cost has 
        realized significant and encouraging success. International 
        participation further reduces cost.
        - Logistics Supportability and Commonality.

    The F-35 is central to the National Military Strategy and our 
ability to deter and defeat an increasing anti-access threat.

    25. Senator Inhofe. Admiral Winnefeld, what is the threat that is 
driving procurement of this aircraft--air and ground?
    Admiral Winnefeld. The multi-role F-35 is the centerpiece of the 
Department's future air dominance and precision attack capabilities. 
The F-35's fifth generation attributes, including integrated advanced 
technology sensors, networking, and signature controls, are critical 
for maintaining U.S. air supremacy and ensuring our ability to operate 
against modern and emerging threats. The emergence of competitor fifth 
generation aircraft within the next decade--coupled with the 
proliferation of sophisticated electronic warfare capabilities and 
modern integrated air defense systems--increasingly threaten our 
current fourth generation aircraft. The F-35 is designed to control the 
air and to penetrate heavily defended environments in order to deliver 
a wide-range of precision munitions.

    26. Senator Inhofe. Admiral Winnefeld, why can't we just purchase 
more F-16s and F/A-18 Super Hornets?
    Admiral Winnefeld. The Department's priority in TACAIR is to 
acquire fifth-generation fighter/attack aircraft as quickly and 
efficiently as practical while maintaining sufficient inventory of 
legacy aircraft to meet current and near-term commitments. F-16s and F/
A-18E/Fs remain highly capable strike and fighter aircraft and will be 
operated for many additional years. However, the limitations of these 
fourth generation aircraft against adversaries employing sophisticated 
surface-to-air and air-to-air threats will make them much less 
survivable in the future. The F-35 will represent a generational leap 
in effectiveness over these superb, but legacy, platforms.

    27. Senator Inhofe. Admiral Winnefeld, does DOD still plan to 
procure 2,443 F-35s?
    Admiral Winnefeld. Yes, the Department's current plan is to procure 
2,443 F-35 aircraft. The President's fiscal year 2014 Defense budget 
request includes a total of $8.3 billion for the program--$1.8 billion 
for continued system development and $6.5 billion for procurement of 29 
aircraft. The Department endeavored to protect the development of the 
F-35 program this year as it adjusted its budget to meet the mandates 
of sequestration.

    28. Senator Inhofe. Admiral Winnefeld, what impact does slowing 
down or delaying F-35 production?
    Admiral Winnefeld. Slowing down or delaying F-35 production has two 
major impacts. First we need to begin to ramp up production to take 
advantage of more economic orders of quantity. The Department has 
maintained a flat production ramp for the last few years to mitigate 
the costs associated with concurrency. As the potential risks of 
finding major design flaws through ground and flight test subside, we 
need to ramp up the production profile at a measured rate to reduce the 
cost of the aircraft. Slowing or delaying this will cost us more money.
    Second, delaying or slowing F-35 production impacts our operational 
forces. The F-35 will replace most of the legacy tactical aircraft 
force structure for the Navy, Air Force, and Marine Corps. Delaying the 
transition to the F-35 will force the Services to extend the life of 
their current fleets through costly life cycle extensions, additional 
inspection and modification schedules, and in some cases changes to 
operational plans. The F-35 represents the future of our joint tactical 
aircraft fleet. Any delays to that end state impact our ability to meet 
current and future operational commitments.

    29. Senator Inhofe. Admiral Winnefeld, what would be the impact of 
decreasing procurement of any of the F-35 variants?
    Admiral Winnefeld. Unit cost is extremely sensitive to the total 
quantity procured. Savings in the cost of the aircraft can be realized 
through bulk purchases and other economies of scale. The actual cost of 
an individual aircraft in any given LRIP lot is largely influenced by 
how many aircraft are being purchased, and how much production line 
learning has been achieved to that point. Loss of purchases will limit 
the ability of the program to take advantage of economies of scale, as 
well as reducing learning opportunities, which would drive the cost up 
significantly.

    30. Senator Inhofe. Admiral Winnefeld, what is your operational 
assessment of the importance of the international partnership in this 
program?
    Admiral Winnefeld. The F-35 program is the Department's largest 
cooperative program with eight partner nations participating including 
the United Kingdom, Italy, Netherlands, Turkey, Canada, Australia, 
Denmark, and Norway. The F-35 enhances the strength of our security 
alliances by closing a crucial capability gap which enables us to 
operate together more effectively. Likewise, operating a common fifth 
generation strike fighter aircraft not only helps minimize 
communications and interoperability issues among partner nations but 
also becomes another element that binds us together. In addition, 
partner nation procurement and Foreign Military Sales of the F-35 
mitigate costs through increased production quantities. Notably, 
partner nations recently have met and expressed their continued 
commitment and support for the program; however, they are also 
monitoring how DOD budget cuts will impact the cost of the program.

                           civilian furloughs
    31. Senator Inhofe. Admiral Winnefeld, what can DOD do to end 
civilian furloughs now?
    Admiral Winnefeld. The Secretary of Defense instructed all 
components to monitor funding closely for the remainder of fiscal year 
2013. On 6 August, the Secretary announced that this goal was 
accomplished, and reduced the total furlough days for most civilians 
from 11 to 6 days. None of us want to see this occur again in 2014, but 
the sequestration reductions will be more severe next year than this 
year.

    32. Senator Inhofe. Admiral Winnefeld, will DOD use civilian 
furloughs next year to cut personnel costs?
    Admiral Winnefeld. The $37 billion in fiscal year 2013 budget cuts 
mandated by sequestration, combined with short timelines that limited 
our options, were a major cause of these furloughs. We would hope to 
avoid furloughs in the future because of their deleterious effects on 
morale and their potential to cause our best civilians to seek 
employment elsewhere. However, a $52 billion sequestration top line cut 
in fiscal year 2014 would perpetuate our readiness shortfalls, likely 
requiring additional civilian personnel actions. These actions could 
include furloughs, but we believe under a longer-term view would more 
likely be weighted towards reductions in civilian billets leading to a 
reduction-in-force action.

    33. Senator Inhofe. Admiral Winnefeld, how long will it take before 
you realize this is a penny wise-pound foolish approach to cost 
savings?
    Admiral Winnefeld. We already realize the drawbacks of civilian 
furloughs--they are as distasteful to us as any other budget reduction 
mechanism. However, in fiscal year 2013, sequestration was applied by 
Congress on a short timeline, limiting our options and resulting in 
drastic measures like readiness stand-downs and furloughs that were not 
strategically or managerially sound. To avoid even more far reaching 
effects on training, we furloughed most of our civilian employees for 
up to 6 days. This impacted morale and productivity in most of our 
support operations, but we were left with no other alternative in 
finding $37 billion in savings in such a short period of time.
    Going forward, the Strategic Choices and Management Review has 
defined the decision-space faced by the Department's senior leadership. 
This, in turn, will inform the Services and defense agencies in 
developing their fiscal year 2015-2019 budgets later this year, as well 
as ultimately inform the Department's next Quadrennial Defense Review 
early next year.

    34. Senator Inhofe. Admiral Winnefeld, early this year you hosted a 
meeting with Members of Congress and the Vice Chiefs of the Services. 
One of the major themes from that meeting was the commitment to address 
cultural change in the Services to combat sexual assault. What steps 
have you taken since then to effect that cultural change and what will 
you do, if confirmed, to continue progress?
    Admiral Winnefeld. Cultural change begins at the top of any 
organization. The senior leaders within the Department of Defense are 
committed to aggressively addressing this issue. The Joint Chiefs have 
reviewed and made changes to service policies, have shared best 
practices, have recommended a number of important initiatives to the 
Secretary that have been implemented across the department, have 
conducted a stand-down to focus exclusively on sexual assault, have 
updated our training programs, and are currently engaged in developing 
specific metrics to ensure we maintain a persistent focus on this 
issue. Our initiatives are designed to cover the full spectrum of 
attacking this problem, including but not limited to: continuing our 
efforts to create an environment where this crime is much less likely 
to occur; taking the best possible care of the victims of this crime 
when it occurs; continuing progress in creating an atmosphere more 
conducive to reporting; and continuing to tighten our prosecution 
efforts. Measuring progress is exceptionally difficult, but we feel we 
are making progress--for instance, the Services believe they are 
already seeing increased rates of reporting. The personal engagement by 
senior leaders created action down the chain of command and the 
priority to change our culture is recognized throughout our Services. 
We will continue to focus on combatting sexual assault within our ranks 
to drive a culture of respect and dignity for all our servicemembers--
and I personally welcome and look forward to our continued interaction 
with Congress on this vital issue.

 impact of senate appropriations committee funding reduction for b-61 
                                  bomb
    35. Senator Inhofe. Admiral Winnefeld, what are the military and 
geo-political implications of the Senate Appropriations Committee's 
recommendation to reduce funding for the B-61 Life Extension Program 
(LEP) by $168 million?
    Admiral Winnefeld. A $168 million reduction to the B-61 LEP would 
slip the delivery of the first production unit past fiscal year 2019 
and impact our commitment to our NATO and Asian allies. Additionally, 
the Commander of STRATCOM stated that the program is important to the 
long-term viability of the B-2A strategic mission and is needed 
regardless of changes to NATO commitments.
    This reduction would also limit the DOD and the Department of 
Energy from leveraging interoperable technology for other strategic 
weapons. We would need to adjust the budget and scope for those 
programs, resulting in delays to the overall Nuclear Weapons Council 
Baseline Plan.

                              tricare fees
    36. Senator Inhofe. Admiral Winnefeld, prior to sending fee 
increase proposals to Congress, why doesn't DOD sit down with 
beneficiary associations and Congress to design fee increases that are 
reasonable and acceptable to everyone?
    Admiral Winnefeld. Military health benefit reform has been shaped 
over the last 8 years by program and policy experts, Members of 
Congress, constituencies, and subject matter experts from within and 
outside of the Department. The Department's proposals have been and 
will continue to be based on sound principles, as well as feedback from 
these stakeholders.

    37. Senator Inhofe. Admiral Winnefeld, it seems to me that DOD 
should wait on the Military Compensation and Retirement Modernization 
Commission to report its recommendations before asking Congress to make 
piecemeal changes to personnel benefits. Do you agree or disagree, and 
why or why not?
    Admiral Winnefeld. The Commission has a unique opportunity to make 
real and substantive change. We also recognize that comprehensively 
reviewing all areas of military pay and benefits, developing 
recommendations for change, and vetting them within DOD and with other 
Departments takes time. We would like to take that time, but 
sequestration has radically changed the budget reality and demands more 
rapid action from the Department and Congress if we are to sustain 
long-term readiness and modernization.

    38. Senator Inhofe. Admiral Winnefeld, wouldn't development of a 
comprehensive package of compensation and retirement benefit changes, 
to include health benefit changes, make more sense rather than a piece-
meal approach that wouldn't get us to an optimal solution for 
controlling DOD's sky-rocketing personnel costs?
    Admiral Winnefeld. If we had the luxury of time to allow 
development of a comprehensive package before making any changes, we 
would support it. However, given the enormous pressure the DOD budget 
is under, we need to act with urgency on both efficiencies and 
compensation reform if we are to maintain an acceptable level of 
military capability, capacity, and readiness to be able to conduct our 
military missions. I am not convinced that there is excessive risk in 
getting compensation and benefits under control through carefully, but 
quickly, considered individual actions.

               nuclear force reductions and modernization
    39. Senator Inhofe. Admiral Winnefeld, you state in your advance 
policy questions that ``the timing and size of reductions, if any, 
would have to be closely coupled to the status of the modernization 
effort.'' The status today of that effort is as follows: (1) 2-year 
delay for the follow-on SSBN; (2) 2-year delay to the follow-on ALCM; 
(3) 2- to 3-year delay to LEP for the B-61 nuclear bomb; (4) 2-year 
delay for the W-78/88 LEP; and (5) an indefinite delay for the 
construction of a facility to replace the Chemistry and Metallurgy 
Facility in Los Alamos. At what point are you prepared to say that 
delays in the nuclear modernization effort, as promised by the New 
Strategic Arms Reduction Treaty (START), should caution against further 
nuclear force reductions? Put another way, if these delays get worse, 
are you prepared to recommend against further nuclear force reductions 
below New START levels?
    Admiral Winnefeld. The Nuclear Weapons Council has recently 
approved a baseline strategy that provides an executable 25-year plan 
that sustains a safe, secure, and effective nuclear weapons stockpile. 
This strategy is aligned with plans for platforms and delivery systems, 
and has adjusted the start dates and delivery targets for LEPs and some 
portions of the infrastructure improvements. This plan is executable 
with respect to throughput considerations and given fiscal constraints. 
It also moves us towards a responsive infrastructure, as stated in the 
Nuclear Posture Review and considered as part of the follow-on nuclear 
force reductions. I consider execution of this baseline strategy to be 
necessary for any negotiation of further nuclear force reductions below 
New START levels.
    However, this plan is vulnerable to additional budget cuts--it is 
very fragile. While my recommendations on additional nuclear weapons 
cuts are primarily tied to the direct linkage they should have with 
negotiations with Russia, I would have to also take into consideration 
any further delays to modernization programs. Because I believe below 
New START cuts would be well in the future, we will have a much better 
understanding of the status of the programs when and if they are in 
play.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                    uh-1n replacement opportunities
    40. Senator Wicker. Admiral Winnefeld, as evidenced by the recent 
relief of 17 officers at Minot AFB and the reports of the Defense 
Science Board (DSB) Standing Task Force on Nuclear Weapons Surety, 
there is still a serious neglect of priority and budget for the 
sustainment of the Air Force's Priority One Nuclear Enterprise. This 
lack of prioritization and resourcing manifests in a nuclear enterprise 
that continues to conduct critical mission activities with outdated and 
insufficiently supported aircraft and ground vehicles, to include the 
woefully inadequate 40-plus-year-old UH-1N helicopter.
    The Air Force has acknowledged the need to replace the UH-1N for 
over a decade. The aircraft's inadequate speed, range and payload, and 
obsolescent sensors and monitoring equipment are well-documented. The 
use of an antiquated airframe such as the UH-1N to provide security for 
Intercontinental Ballistic Missile (ICBM) sites reflects a lack of 
proper resource prioritization by DOD.
    As Chairman and Vice Chairman of the Joint Chiefs, you are required 
to provide cross-Service oversight and recommendations that lead to the 
most effective and efficient use of the greater defense industrial 
capabilities. There are inexpensive and cost-effective solutions 
available to replace the Vietnam-era Huey being fielded by other 
Services that are far more reliable, capable, and safe.
    As demonstrated in the Senate Armed Services Committee markup of 
the NDAA for Fiscal Year 2014, I would like to understand the current 
plan for replacing the existing UH-1N fleet. In addition, I would like 
your commitment that this issue will be addressed in the upcoming 
fiscal year 2015 budget submittal. Despite being an Air Force priority 
for over 10 years, why has the replacement of the UH-1N fleet not been 
realized?
    Admiral Winnefeld. The requirement for a more responsive capability 
to meet ICBM security needs remains valid, but budget constraints in 
both the near-term and the foreseeable future make committing to new 
acquisition programs challenging. A formal replacement strategy for the 
UH-1N is due to the Senate Armed Services Committee on February 1, 
2014. As potential solutions, the Air Force is pursuing a variety of 
replacement options to include Excess Defense Articles at low or no 
cost. We remain committed to remaining involved and attentive to this 
requirement.

    41. Senator Wicker. Admiral Winnefeld, the leadership of Air Force 
Global Strike Command recently commented that: ``I have had an urgent 
and compelling need since 1996 in terms of speed, range, and payload . 
. . the UH-1 does not meet the need. How much longer are we willing to 
wait and take this risk?'' Has there been any change to the ICBM 
security force posture that you believe makes the replacement of the 
UH-1 less compelling or a more acceptable security risk?
    Admiral Winnefeld. No, the ICBM security force posture has not 
changed. The requirement to replace the UH-1s remains valid. However, 
based on budget constraints, the Air Force currently plans to sustain 
the UH-1 for another 6-10 years vice replacing them. The Air Force will 
mitigate risk by upgrading UH-1 cockpits and making them night-vision-
compatible combined with other critical safety improvements. The Air 
Force also recently received three UH-1s from the Marine Corps, which 
will increase capacity and availability. In addition, the Air Force and 
Army are examining options for the Army to transfer additional UH-1s to 
the Air Force.

    42. Senator Wicker. Admiral Winnefeld, there are aircraft being 
fielded by DOD today that are significantly more capable and less 
costly to own and operate than the UH-1N. In your leadership role on 
the JROC, have you, or will you, direct the Air Force to prioritize 
consideration of in-production DOD aircraft as a replacement for the 
UH-1 rather than continue to assume the associated security risks?
    Admiral Winnefeld. The JROC does not direct service acquisition 
decisions. Rather, it defines and validates Joint force requirements 
that are then submitted to both budget and acquisition processes. The 
JROC does validate the results of analyses of alternatives, and will be 
alert to consideration of all possible alternatives, including in-
production aircraft. When the decision is made to replace the UH-1N, a 
full and open competition will be conducted to find the helicopter that 
meets the mission requirements and provides DOD the most capable 
replacement at the most economically feasible cost. This may ultimately 
be an aircraft that is already in production, but those efficiencies 
will be evident through the proper source selection process.

    43. Senator Wicker. Admiral Winnefeld, the Combat Rescue Helicopter 
(CRH) mission requirements were determined to be overly robust and 
expensive to justify the CRH's use for the domestic support missions 
currently conducted by the UH-1N. There is concern that the lack of 
urgency regarding fielding of a UH-1 replacement may indicate an 
attempt to merge CRH and UH-1N missions in the future. Did the JROC 
review of the CRH program validate any requirement to provide site and 
convoy security for the Nation's ICBM force or for supporting the Air 
Force District of Washington VIP airlift/evacuation missions currently 
supported by the UH-1N?
    Admiral Winnefeld. The CRH's primary mission is to recover isolated 
personnel from hostile or denied territory. It will also execute 
humanitarian missions, civil search and rescue, disaster relief, 
casualty/medical evacuation, and non-combatant evacuation operations. 
CRH is not being produced to replace the UH-1N; rather it will replace 
the Air Force's aging HH-60G Pave Hawk helicopter fleet. Thus, JROC 
review and validation of the CRH requirements did not include missions 
currently supported by the UH-1N, such as providing site and convoy 
security for the Nation's ICBM force or supporting the Air Force 
District of Washington VIP airlift/evacuation missions. However, this 
would not preclude the CRH from being called upon to execute missions 
currently being performed by other vertical lift platforms.
                                 ______
                                 
    [The nomination reference of ADM James A. Winnefeld, Jr., 
USN, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 24, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for reappointment as the Vice Chairman 
of the Joint Chiefs of Staff and appointment to the grade indicated 
while assigned to a position of importance and responsibility under 
title 10, U.S.C., sections 601 and 154:

                             To be Admiral.

    ADM James A. Winnefeld, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of ADM James A. Winnefeld, Jr., 
USN, which was transmitted to the committee at the time the 
nomination was referred, follows:]
Transcript of Naval Service for ADM James Alexander Winnefeld, Jr., USN


07 June 1978..............................  Ensign
07 June 1980..............................  Lieutenant (junior grade)
01 July 1982..............................  Lieutenant
01 September 1988.........................  Lieutenant Commander
01 September 1992.........................  Commander
01 September 1997.........................  Captain
01 October 2003...........................  Rear Admiral (lower half)
06 May 2006...............................  Designated Rear Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 August 2006............................  Rear Admiral
14 September 2007.........................  Vice Admiral
19 May 2010...............................  Admiral, Service continuous
                                             to date
 


Assignments and duties:

------------------------------------------------------------------------
                                                     From         To
------------------------------------------------------------------------
Naval Station, Annapolis, MD (Division Officer).   June 1978   Nov. 1978
Naval Aviation Schools Command, Pensacola, FL      Nov. 1978   Apr. 1979
 (DUINS)........................................
Training Squadron SIX (Student).................   Apr. 1979   June 1979
Naval Aviation Schools Command, Pensacola, FL      June 1979   Dec. 1979
 (DUINS)........................................
Training Squadron TWO THREE (Student)...........   June 1979   Dec. 1979
Training Squadron TWO TWO (Student).............   Dec. 1979    May 1980
Fighter Squadron ONE TWO FOUR (Replacement         Jun. 1980   Apr. 1981
 Pilot).........................................
Fighter Squadron TWO FOUR (Power Plants Branch     Apr. 1981   Nov. 1983
 Officer).......................................
Naval Fighter Weapons School, San Diego, CA        Nov. 1983   Jan. 1987
 (Quality Assurance Officer)....................
Fighter Squadron ONE TWO FOUR (Replacement Naval   Jan. 1987   Apr. 1987
 Aviator).......................................
Fighter Squadron ONE (Operations Officer).......   Apr. 1987   Jan. 1990
Joint Staff (Action Officer, EUCOM/CENTCOM         Feb. 1990   July 1991
 Branch, J3)....................................
Joint Staff (Senior Aide-De-Camp to the Chairman   July 1991   Aug. 1992
 of the Joint Chiefs of Staff)..................
Fighter Squadron ONE TWO FOUR (Student).........   Aug. 1992   Jan. 1993
XO, Fighter Squadron TWO ONE ONE................   Jan. 1993   Apr. 1994
CO, Fighter Squadron TWO ONE ONE................   Apr. 1994   Mar. 1995
Naval Nuclear Power Training Command, Orlando,     Mar. 1995   Feb. 1996
 FL (Student)...................................
Prospective Executive Officer, USS John C.         Feb. 1996   Mar. 1996
 Stennis (CVN 74)...............................
Naval Reactors, Department of Energy,              Mar. 1996   Aug. 1996
 Washington, DC (Student).......................
XO, USS John C Stennis (CVN 74).................   Aug. 1996    May 1998
CO, USS Cleveland (LPD 7).......................    May 1998   Feb. 2000
CO, USS Enterprise (CVN 65).....................   Feb. 2000   Mar. 2002
Office of the Vice Chief of Naval Operations       Mar. 2002   July 2003
 (Executive Assistant)..........................
Commander, U.S. Atlantic Fleet (Director,          July 2003   Dec. 2004
 Warfare Programs and Readiness) (N8)...........
Commander, Carrier Strike Group TWO.............   Dec. 2004   June 2006
Commander, U.S. Joint Forces Command (Director     June 2006   Aug. 2007
 of Joint Innovation and Experimentation, J9)...
Commander, SIXTH Fleet/Commander, Striking and     Sep. 2007   Aug. 2008
 Support Forces NATO/Deputy Commander, U.S.
 Naval Forces Europe/Commander, Joint
 Headquarters Lisbon............................
Joint Staff (Director, Strategic Plans and         Aug. 2008    May 2010
 Policy) (J5)/Senior Member, U.S. Delegation to
 the United Nations Military Staff Committee....
Commander, Northern Command/Commander, North        May 2010   Aug. 2011
 American Aerospace Defense Command.............
Vice Chairman of the Joint Chief of Staff.......   Aug. 2011     to date
------------------------------------------------------------------------

Medals and awards:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit with one Silver Star
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal
    Air Medal with First Strike/Flight Award
    Navy and Marine Corps Commendation Medal with one Gold Star
    Joint Service Achievement Medal
    Navy and Marine Corps Achievement Medal
    Joint Meritorious Unit Award
    Navy Unit Commendation with one Bronze Star
    Meritorious Unit Commendation with two Bronze Stars
    Navy ``E'' Ribbon with ``E'' Device
    National Defense Service Medal with one Bronze Star
    Armed Forces Expeditionary Medal with four Bronze Stars
    Southwest Asia Service Medal with one Bronze Star
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Sea Service Deployment Ribbon with two Bronze Stars
    Expert Pistol Shot Medal

Special qualifications:
    BS (Aerospace Engineering) Georgia Institute of Technology, 1978
    Designated Naval Aviator, 1980
    Capstone, 2004-3
    Designated Level IV Joint Qualified Officer, 2009

Summary of joint duty assignments:

------------------------------------------------------------------------
             Assignment                        Dates             Rank
------------------------------------------------------------------------
Joint Staff (Action Officer, EUCOM/   Feb. 1990-July 1991...          LCDR
 CENTCOM Branch, J3).
Joint Staff (Senior Aide-De-Camp to   July 1991-Aug. 1992...           CDR
 the Chairman of the Joint Chiefs of
 Staff).
Commander, U.S. Joint Forces Command  June 2006-Aug. 2007...       RADM
 (Director of Joint Innovation and
 Experimentation, J9).
Commander, SIXTH Fleet/Commander,     Sep. 2007-Aug. 2008...       VADM
 Striking and Support Forces NATO/
 Deputy Commander, U.S. Naval Forces
 Europe/Commander, Joint
 Headquarters Lisbon.
Joint Staff (Director, Strategic      Aug. 2008-May 2010....       VADM
 Plans and Policy) (J5)/Senior
 Member, U.S. Delegation to the
 United Nations Military Staff
 Committee.
Commander, Northern Command/          May 2010-Aug. 2011....        ADM
 Commander, North American Aerospace
 Defense Command.
Vice Chairman of the Joint Chiefs of  Aug. 2011-to date.....        ADM
 Staff.
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM James A. 
Winnefeld, Jr., USN, in connection with his nomination 
follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James A. Winnefeld, Jr.; Nickname: Sandy.

    2. Position to which nominated:
    Vice Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    June 24, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 24, 1956; Coronado, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary Alice Winnefeld.
    Maiden name: Mary Alice Werner.

    7. Names and ages of children:
    James, age 17.
    Jonathan, age 15.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above.
    None, other than military service.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    I serve as a trustee of the Naval Academy Foundation Athletics and 
Scholarships program, as reported on my SF 278. Trustee means 
``member'' in this case. I have no advisory or supervisory role in the 
organization.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                            James A. Winnefeld, Jr.
    This 14th day of June, 2013.

    [The nomination of ADM James A. Winnefeld, Jr., USN, was 
reported to the Senate by Chairman Levin on July 30, 2013, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 1, 2013.]
                                     



  NOMINATIONS OF HON. STEPHEN W. PRESTON TO BE GENERAL COUNSEL OF THE 
DEPARTMENT OF DEFENSE; HON. JON T. RYMER TO BE INSPECTOR GENERAL OF THE 
DEPARTMENT OF DEFENSE; MS. SUSAN J. RABERN TO BE ASSISTANT SECRETARY OF 
 THE NAVY FOR FINANCIAL MANAGEMENT AND COMPTROLLER; AND MR. DENNIS V. 
McGINN TO BE ASSISTANT SECRETARY OF THE NAVY FOR ENERGY, INSTALLATIONS, 
                            AND ENVIRONMENT

                              ----------                              


                        THURSDAY, JULY 25, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Udall, Manchin, 
Shaheen, Blumenthal, Donnelly, Kaine, and Inhofe.
    Also present: Senator John Warner, R-VA (Ret.).
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Michael J. Kuiken, professional staff member; Gerald J. 
Leeling, general counsel; Jason W. Maroney, counsel; Mariah K. 
McNamara, special assistant to the staff director; William G.P. 
Monahan, counsel; Michael J. Noblet, professional staff member; 
Roy F. Phillips, professional staff member; John H. Quirk V, 
professional staff member; and Russell L. Shaffer, counsel.
    Minority staff members present: John A. Bonsell, minority 
staff director; Daniel C. Adams, minority associate counsel; 
Steven M. Barney, minority counsel; William S. Castle, minority 
general counsel; Samantha L. Clark, minority associate counsel; 
Natalie M. Nicolas, minority staff assistant; and Lucian L. 
Niemeyer, professional staff member.
    Staff assistants present: Daniel J. Harder and John L. 
Principato.
    Committee members' assistants present: Jeff Fatora, 
assistant to Senator Nelson; Casey Howard, assistant to Senator 
Udall; Mara Boggs and David LaPorte, assistants to Senator 
Manchin; Patrick Day, assistant to Senator Shaheen; Moran 
Banai, assistant to Senator Gillibrand; Ethan Saxon, assistant 
to Senator Blumenthal; Marta McLellan Ross, assistant to 
Senator Donnelly; Karen Courington, assistant to Senator Kaine; 
Steve Smith, assistant to Senator King; Alex Herrgott, 
assistant to Senator Inhofe; Lenwood Landrum, assistant to 
Senator Sessions; Todd Harmer, assistant to Senator Chambliss; 
Craig Abele, assistant to Senator Graham; and Peter Blair, 
assistant to Senator Lee.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets, this morning, to consider nominations for a number of 
important and challenging positions and assignments.
    We welcome Steve Preston, who's nominated to be the 
Department of Defense (DOD) General Counsel; Jon Rymer, 
nominated to the Department of Defense Inspector General (IG); 
Susan Rabern, nominated to be the Department of the Navy's 
Assistant Secretary for Financial Management and Comptroller; 
and Retired Vice Admiral Dennis McGinn, nominated to be the 
Department of the Navy's Assistant Secretary for Energy, 
Installations, and Environment.
    We appreciate your being here today. We appreciate, also, 
your willingness to serve in these positions which have such 
great responsibility.
    We welcome your family members this morning. The committee 
is keenly aware of how important families are, in terms of 
supporting the family members who take these positions, and to 
the success of our civilian leaders. We very much appreciate 
those family members who are able to join us today. Our 
witnesses should feel free, during their opening remarks, to 
introduce family members or others who may be with them here 
this morning.
    We're especially pleased to welcome back to our committee a 
dear, dear friend. I won't call him an old friend, although he 
is an old friend. John Warner is a true giant, a modern giant 
of the U.S. Senate. I don't want to say we miss him every day, 
because that might suggest something about my Ranking Member, 
which I don't want to suggest. [Laughter.]
    But, we miss you every day around here. The contribution 
that you made to this body and to our country, the ability that 
you have to bring people together, to look at issues in a clear 
and a clean way, free from a lot of parochial or partisan 
manner, is something which we treasure in our memory and we 
wish we could replicate here in the Senate today.
    John, we just love to see you here. I know every member of 
this committee treasures our relationship with you, but I 
particularly treasure the long, long relationship that we had.
    Senator Inhofe. May I say something?
    Chairman Levin. Please.
    Senator Inhofe. Let me also echo a few things about Senator 
Warner. We've been good friends for many, many years. He does 
have some frailties, however. I always remember, when you were 
out in Oklahoma and my staff, which, under my supervision, 
generally drives pretty fast--I always remember your statement. 
You said, ``I've been through two wars, I've been through 
there, and I'm not going to die on this highway. Slow down.'' 
[Laughter.]
    He did. John spoke, and speaks, with authority, and people 
listen.
    It's nice to have you back, John.
    Chairman Levin. I have a lot of memories. I ought to share 
one, at least, since my ranking member shared one. I have so 
many. But, the love of life that Senator Warner has, the lust 
for life--when we were traveling together, and we'd be eating 
in a restaurant, and he would have something, which he had 
special gusto for and fondness for, some food. After we were 
done, he'd walk into the kitchen, in his commanding way, and 
say, ``Can you pack up about 20 of those dinners for my crew? 
I'm taking them to the airplane and handing them out to people 
on the way.'' He always took care of the men and women who 
traveled with us. It was always in his mind to do that.
    But, the way in which John Warner gives a zest to life is 
something we also ought to emulate. We treasure the many, many 
memories. I won't go into them more than that, but we will call 
on Senator Warner to defend himself in a couple of minutes, 
when he introduces Admiral McGinn.
    The positions to which our witnesses have been nominated 
are vital to the effective and the efficient operation of the 
Department of Defense. Two of the positions--the DOD General 
Counsel and the DOD Inspector General--are direct advisors to 
the Secretary of Defense and to the Deputy Secretary of 
Defense, and they are the senior most civilian positions in the 
legal and oversight functions of the Department.
    The DOD General Counsel is the chief legal advisor in the 
Defense Department and is involved in many of the most 
important and complex issues facing the Department of Defense 
in the Military Services. The Office of General Counsel handles 
a broad portfolio, including international law, real estate, 
environmental law, contracts, personnel law, ethics, and 
legislation. Mr. Preston is highly qualified for this position, 
having served previously as Principal Deputy General Counsel 
and as the Navy's General Counsel. Currently, he is the General 
Counsel at the Central Intelligence Agency (CIA), a position he 
assumed following Senate confirmation in 2009.
    The Department of Defense Inspector General is a senior 
independent agency official who provides oversight related to 
the programs and operations of the Department. The IG's mission 
is to promote integrity, accountability, and improvement of DOD 
personnel, programs, and operations to support the Department's 
mission and to serve the public interest. Mr. Rymer, a recently 
retired Army Reserve soldier, is currently the IG at the 
Federal Deposit Insurance Corporation (FDIC), and he's held 
that position since 2006. If confirmed as the DOD Inspector 
General, he'll be required to maintain his independence and 
exercise strong oversight of critical programs within the 
Department.
    The two nominees for positions within the Department of the 
Navy will also, if confirmed, have important responsibility.
    The Assistant Secretary of the Navy for Financial 
Management and Comptroller is responsible for managing the 
Navy's budget and for keeping the Navy on the path to an 
auditable financial statement. Ms. Rabern has a distinguished 
background. She served for 20 years in the U.S. Navy and has 
held the position of Chief Financial Officer at the Federal 
Bureau of Investigation (FBI), the U.S. Customs Service, and 
the U.S. Agency for International Development. She is currently 
the Director of the Virginia Military Institute Center for 
Leadership and Ethics.
    The Assistant Secretary of the Navy for Energy, 
Installations, and Environment is responsible for, among other 
things, enhancing energy security of the Navy and Marine Corps 
forces, construction and maintenance of installations, family 
housing, and environmental protection. These issues are 
critical to the readiness of our sailors and marines, and the 
welfare of their families. Retired Vice Admiral McGinn, having 
served 35 years in the Navy, has considerable experience with 
Navy programs and policies. Most recently, he has led the 
American Council on Renewable Energy.
    Again, we welcome all of our nominees. We look forward to 
your testimony.
    I'll now call on Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    I join you in welcoming, not just our friend John, but the 
whole panel.
    Mr. Preston, you've been nominated to serve as General 
Counsel for the Department. The General Counsel serves as a 
chief legal officer in the Department. Therefore, I believe 
it's absolutely necessary to understand what your role was and 
what actions you took as the General Counsel of the CIA after 
the attack on our facility in Benghazi on September 11. In 
addition, if confirmed, you will provide a vital role in 
determining the future of Guantanamo Bay (GTMO). Therefore, 
gaining a better understanding of your thoughts on this matter 
will be important to this committee's consideration.
    Finally, the General Counsel plays a significant role in 
the conduct of the Defense Department activities all around the 
world, including ongoing counterterrorism activities. As the 
threat from global terrorism continues to evolve, it's 
important that we have the strong legal foundations that 
provides our military with the tools necessary to keep the 
Nation safe.
    Mr. Rymer, you have been nominated to serve as Inspector 
General of the Department. If confirmed, you will will step 
into an organization that has not had a confirmed Inspector 
General since December 2011. There's a lot of work to be done, 
especially in oversight of activities that will lead to 
financial audit readiness in the Department of Defense, in 
providing intelligence, oversight, and, in an area of 
particular importance to this committee, conducting senior 
official investigations. The Department urgently needs an 
Inspector General who can lead this important role to promote 
the accountability and integrity.
    Vice Admiral McGinn, after a distinguished 35-year career 
in the Navy, you've been nominated to serve as the Assistant 
Secretary of the Navy for Energy, Installations, and 
Environment. I note that, since 2011, you've been the President 
of the American Council on Renewable Energy, which is no 
surprise to me, and you are no stranger to the lime light, 
having testified before Congress on the perils of the national 
security of human activity and climate change. We completely 
disagree on these issues, but, thankfully, implementing a 
national policy for climate change will not be one of your core 
responsibilities if you are confirmed. Instead, you'll be 
tasked with helping the Navy navigate a complex range of 
installation and environmental issues, as well as its fiscally 
responsible pursuit of the green fleet.
    Additionally, I look forward to hearing your views on the 
relocation of marines in the Pacific theater. I just got back 
from there, and I see now, with sequestration, the really 
serious problems that we're having. Certainly, Senator Warner, 
you've been following this, too. The need to expand Marine 
Corps ranges and protect the sea ranges--most important, the 
devastating impact of sequestration on the Navy's ability to 
maintain shore facilities, depots, and shipyards. This is 
something that is very current. We have a problem that's 
looming. We'll have a chance to talk about during the course of 
this hearing.
    Ms. Rabern, you've been nominated to serve as Assistant 
Secretary for the Navy for Financial Management and 
Comptroller. The Navy, like all of our Military Services, is 
suffering greatly as a result of the drastic budget cuts and 
the prolonged fiscal uncertainty. Additionally, the inability 
of the Department and the Military Services to achieve full 
financial audit readiness is concerning to many of us in 
Congress.
    I thank the very distinguished panel and look forward to 
your testimony.
    Chairman Levin. Thank you very much, Senator Inhofe.
    I think what we'll do is go a little bit out of order, 
here, to give Senator Warner an opportunity to introduce 
Admiral McGinn, because you may have to leave, Senator Warner, 
in which case you, obviously, are free to do so after your 
introduction, and then we will go back to the other end of the 
table after you introduce Admiral McGinn.
    Again, a very warm welcome, John, and please proceed.

 STATEMENT OF HON. JOHN WARNER, U.S. SENATOR FROM THE STATE OF 
                       VIRGINIA, RETIRED

    Senator Warner. Thank you, Mr. Chairman and the 
distinguished ranking member from Oklahoma.
    It was a moving experience for me to come up here today and 
be in this room in the presence of two individuals that enabled 
me to achieve the career, such as I did, for 30 years in this 
body.
    Senator Levin, you and I came together, and Senator Inhofe 
joined us shortly after that. Through our joint efforts, and, 
most importantly, through a trust and friendship we both had 
for each other, I was able to finish up and look back with a 
sense of pride and accomplishment. I thank you both, and the 
other members of this distinguished committee. I wish them 
well, particularly some of the new members. It's a great 
experience in life, and it's absolutely essential for this 
country.
    I'll be very brief, Mr. Chairman, because the nominee is 
well known. But, before I proceed to the nominee, may I say, I 
studied, with great interest and care, all four of the resumes 
of these individuals. It's extraordinary to see generations who 
have done public service, go into the private sector, then 
willing to forego many of the benefits of private sector and 
return to serve their Nation and the public. Judging from my 
own experience, these four resumes constitute an extraordinary 
body of knowledge needed in these respective positions and 
needed by our country at a critical time.
    I wish them each well, and specifically my good friend, 
Admiral Dennis McGinn. Again, the Navy's been an important part 
of my life for over a half century. I've known many persons in 
the Navy Department, having served as Secretary of the Navy for 
many years. But, this is an unusual individual.
    We were put together in the context of organizations that 
were seeking to do public policy dissemination in a very 
nonpartisan way. The Center for Naval Analysis, where Admiral 
McGinn was vice chairman of the Military Advisory Board, that 
organization is an integral part of the old naval secretariat. 
It has grown into a much larger and more effective entity now, 
and just serving the public on issues of great importance, 
particularly those related to national security. Very able 
leadership, and the Admiral, I'd say, was the vice chairman of 
the Military Advisory Board. I was with the Pew Charitable 
Trust. Those two organizations collaborated to put on the road, 
years ago when I first left the Senate, a team to go out and 
just talk and listen to the general public, gather facts, and 
come back, promulgating no special message, except that key one 
related to the nexus, the linkage between national security, 
national defense, environment, and our global standing in this 
competitive economic world.
    Particularly, our job was to visit military bases and go 
out and relate to the general public of the remarkable job 
being done by the men and women in uniform to address the 
questions of energy, how their own creativity, their own 
innovations, contributed; the feedback that they gave through 
their respective commands and centralized back in the 
Department of Defense. Its remarkable story as energy loomed on 
the horizon as such a vital part of our overall security, they 
were some of the leaders, and continue to be.
    The Admiral and I gave many appearances together for town 
councils, universities, colleges, and all types of things, over 
a period of several years, and we got to know each other well.
    I say to you, he is a true American story, from midshipman 
at the Academy, 30-plus years with the fleet and the sailors, 
and then Deputy Chief of Naval Operations. It's all in the 
record, but it's an extraordinary story of accomplishment of a 
professional in our national security system.
    His hallmark, if I were to pick one out, is humility. 
Surprisingly, humility. Now, he's a naval aviator, and that is 
extraordinarily difficult for that particular class of 
individual, it has been my experience for them to be humble. 
But, he had it. He was in full afterburn, and, most of the time 
when we were speaking and I had to lean over gently, as you've 
done to me many times, both you, tapping me, ``That's enough.'' 
[Laughter.]
    But, I have coached him to be brief and to the point and to 
follow orders of the Commander in Chief and of the Secretary of 
the Navy, and he has pledged to do that, to me, and I'm certain 
he would do the same for you.
    He's accompanied today by a very lovely Navy wife, and he 
will introduce her at an appropriate time.
    With that, I once again thank this committee for its work, 
and wish you well, because these are troubled times for our 
country. But, it appears to me, with all due respect to the 
confirmation process, a very vital part of the function of the 
U.S. Senate, we have fine people. This country is greatly 
strengthened by the will of such people to step forward and do, 
time and time again, public service.
    I thank you very much, Mr. Chairman.
    Chairman Levin. Thank you so much. Before you leave, 
Senator Warner, one of the new members that you looked over to 
and referred to is Senator Kaine, who is, of course, a 
Virginian--a proud Virginian who brings a huge amount of 
background experience to this committee. I'm just wondering 
whether he might--and I know he does--want to say a word or two 
to you before you leave.
    Let me recognize our new member from Virginia, Senator 
Kaine.
    Senator Warner. Thank you.
    Senator Kaine. Thank you, Mr. Chairman, for letting the guy 
at the end of the aisle go a little bit out of order, here.
    I want to thank my friend Senator Warner. As some of my 
colleagues know, my father-in-law and Senator Warner returned 
from being in the Navy in World War II in the Pacific, not 
serving together, but they returned together to be students and 
finish their college education at Washington and Lee University 
(W&L). The families have been close friends. My father-in-law, 
who turns 90 on the 21st of September, former Governor of 
Virginia, Linwood Holton, considers John Warner as one of his 
dearest friends. They ran against each other for the Senate in 
a Republican nominating contest in 1978, and this was the 
victor. But, my father-in-law has always so admired Senator 
Warner. There's no public official who's served Virginia in the 
last century who is as admired, by Virginians of all political 
persuasions, than Senator Warner. To be able to be a member of 
this committee, even in this junior role, and know that this 
Senator preceded me in fantastic service here, is a very 
humbling thing.
    It is great to be with you, as always, Senator, and it's so 
nice that the chairman let me say those words.
    Senator Warner. I thank you very much, my good friend and 
colleague. Indeed, your father, former Governor of Virginia, is 
a dear and valued friend.
    I wish to give you a little bit of hope. I once occupied 
that seat. [Laughter.]
    Senator Warner. Through the years, Senator Levin, who's 
over there, we merged together as these two great giants of 
Senators up there today.
    Good luck to each and every one of you, and to the 
importance of the confirmation process.
    I thank the chairman and the ranking member.
    Chairman Levin. Thank you so much, Senator.
    Senator Warner. I say to Dennis McGinn, you're on your own 
now. [Laughter.]
    Chairman Levin. I quote Senator Warner with that farewell 
all the time, ``You're on your own.''
    You're all on your own now, except your families are behind 
you, which means you're not at all on your own.
    Let me start with you, Mr. Preston, and then we'll go in 
regular order.

STATEMENT OF HON. STEPHEN W. PRESTON, TO BE GENERAL COUNSEL OF 
                   THE DEPARTMENT OF DEFENSE

    Mr. Preston. Thank you, Mr. Chairman and Senator Inhofe, 
members of the committee. It's a great honor for me to be here 
as the President's nominee to be General Counsel in the 
Department of Defense.
    I wouldn't be doing this, but for the support of my family, 
with us here this morning. If I may, my wife, Mary, our 
daughter, Julia, and our son, Collett. I'm pleased and very 
proud to be able to introduce them to you this morning.
    Let me also pause to express my appreciation to President 
Obama and Secretary Hagel for their confidence in me.
    This is my third appearance before a committee of the U.S. 
Senate as a nominee seeking confirmation. I was examined by the 
Intelligence Committee, a little more than 4 years ago, in 
connection with my current appointment as General Counsel of 
the Central Intelligence Agency. Back in September 1998, I 
appeared before this honorable committee prior to my 
appointment as General Counsel of the Department of the Navy.
    Now, I must say, I have found that the temptation to open 
with a lengthy statement diminishes dramatically from one of 
these hearings to the next, so I assure you, I'll be brief with 
my opening. [Laughter.]
    Much has changed in the world and at DOD since I first came 
before this committee, almost 15 years ago. That was before 
September 11. It was even before the attack on USS Cole. Much 
has changed, but much remains the same, in terms of the role of 
a general counsel and what I will pledge to you, if confirmed.
    If confirmed, I will pledge my continued personal 
commitment to the rule of law, and will work to ensure that the 
Department remains in full compliance with all applicable law. 
I will also pledge always to keep in mind the importance of the 
mission--protecting our country from threats to the national 
security--and will work to help find lawful paths to achieve 
mission objectives. Following the Secretary's lead, I will 
pledge my best efforts to ensure that the Armed Services 
Committees are kept properly informed, in furtherance of their 
critical oversight responsibilities. Finally and most 
important, as General Counsel, I will pledge to serve the 
people who serve people who serve us, the fine men and women of 
the U.S. Armed Forces.
    I want to thank you again for this opportunity to be heard. 
I look forward to your questions.
    Chairman Levin. Thank you so much, Mr. Preston.
    Mr. Rymer.

STATEMENT OF HON. JON T. RYMER, TO BE INSPECTOR GENERAL OF THE 
                     DEPARTMENT OF DEFENSE

    Mr. Rymer. Chairman Levin, Ranking Member Inhofe, 
distinguished members of the committee, I'm honored to appear 
before you today as President Obama's nominee to serve as the 
Inspector General of the Department of Defense. I would like to 
thank the President and Secretary Hagel for their expression of 
confidence in me.
    On a personal note, I want to offer my heartfelt thanks to 
my wife, Deb, and my son, Thomson, who are both with me here 
today, for their commitment and support during my career.
    Mr. Chairman, I'm humbled by the magnitude of this position 
and the challenges it presents. If confirmed, I'm committed to 
ensuring efficient, effective, transparent, and independent 
oversight of this dynamic Department.
    The Inspector General Act of 1978, as amended, requires the 
Inspector General to supervise and coordinate audit and 
investigation activities; to promote economy, efficiency, and 
effectiveness in agency operations; and to prevent and detect 
fraud in agency programs. The IG Act also requires the 
Inspector General to keep both Congress and the Secretary 
informed of problems and deficiencies in the Department. At the 
Department of Defense, these responsibilities take on an even 
greater importance, as they relate to the safety and security 
of the brave men and women who serve our country.
    If confirmed, I believe my background and experience will 
serve me well as the DOD IG. First of all, I'm mindful of the 
important role that an IG plays in the Federal Government, 
having served 7 years at the FDIC as the Inspector General and 
for a 9-month concurrent period as the interim Inspector 
General at the Securities and Exchange Commission. I've been an 
active member of the IG community, serving as the chair of the 
Council of Inspectors General on Integrity and Efficiency 
(CIGIE) Audit Committee and a member of the CIGIE Executive 
Council since 2008. I've also represented the community on 
several audit standards-setting bodies.
    Second, given my 30-plus years of Active and Reserve 
service in the U.S. Army, I have a profound respect for the 
members of the military. Having retired from military service 
last month, it would be an honor for me to continue to serve 
with our troops, albeit in a different capacity, as the IG.
    Finally, my private-sector experience includes over 20 
years as a banker, a management consultant, and internal 
auditor. If confirmed, I will capitalize on my past experiences 
and commit to providing the strong leadership needed to manage 
this important office.
    I look forward to working with Congress, Secretary Hagel, 
and the Department's leadership to provide independent, 
relevant, and timely oversight that is critical to supporting 
the warfighter and promoting accountability, integrity, and 
efficiency. I also look forward to working with Principal 
Deputy Inspector General Lynne Halbrooks and the nearly 1,600 
employees who are committed to fulfilling the responsibilities 
of the IG Act at the Department of Defense. Finally, I welcome 
the opportunity to work with my counterparts in the Department 
oversight community.
    Mr. Chairman, thank you and members of the committee for 
your time and for your attention and for allowing me to appear 
here today.
    This concludes my prepared statement. I'll be happy to 
respond to your questions.
    Thank you.
    Chairman Levin. Thank you, Mr. Rymer.
    Dr. Rabern.

STATEMENT OF MS. SUSAN J. RABERN, TO BE ASSISTANT SECRETARY OF 
       THE NAVY FOR FINANCIAL MANAGEMENT AND COMPTROLLER

    Dr. Rabern. Mr. Chairman, Senator Inhofe, distinguished 
members of the committee, I'm honored to have the privilege of 
appearing before you today as the President's nominee for your 
consideration to be the next Assistant Secretary of the Navy 
for Financial Management and Comptroller.
    The Navy has been an important part of my life since I was 
a small child, growing up in the wheat fields of Kansas, 
listening to my father's stories of his service during World 
War II.
    I would like to express my deep appreciation to Secretary 
Mabus for his confidence in me. My husband, David, can't be 
here today because of preexisting commitments at work, but I am 
forever indebted to him for his unfailing and steadfast 
support. My daughters, Stacy, Allison, and Megan, have made 
many sacrifices throughout their lives because of my career. I 
want to formally recognize and thank them for their love, 
support, and enthusiasm, even though they can't be with us 
today.
    Government service in any capacity, but especially during 
these difficult times, is an enormous responsibility. The 
responsibilities of the Assistant Secretary of the Navy for 
Financial Management and Comptroller, are especially 
significant. I'm aware of the daunting challenges associated 
with financial operations and financial management in the 
Department.
    I have been honored to serve in the U.S. Navy, the Federal 
Bureau of Investigation, the former U.S. Customs Service, and 
the U.S. Agency for International Development in financial 
management positions. In each position, I have been grounded in 
a daily recognition that my stewardship over resources and 
people is rooted in the public trust. I believe there is no 
greater responsibility.
    If confirmed, I will work within the Department and with 
the Under Secretary of Defense (Comptroller) to ensure that the 
Department of Navy is properly and efficiently resourced. I 
will strive to ensure that we're taking care of our most 
precious resource: our sailors, marines, and the civilians who 
support them. I will work as hard as I can to ensure they have 
the platforms, equipment, tools, and training they need to 
guarantee their ability to perform their vital role in our 
Nation's security, and that it is never in doubt. I will ensure 
that we develop and execute balanced budgets that are the 
result of thorough and timely analysis and in support of the 
goals and initiatives that Secretary Mabus has established for 
the Department.
    I am deeply honored to have been nominated for this 
position. If confirmed, I pledge to you that I will do my best 
to serve the Nation and the men and women of the Department of 
the Navy to the utmost of my ability.
    Thank you.
    Chairman Levin. Thank you, Dr. Rabern.
    Admiral McGinn.

STATEMENT OF MR. DENNIS V. McGINN, TO BE ASSISTANT SECRETARY OF 
      THE NAVY FOR ENERGY, INSTALLATIONS, AND ENVIRONMENT

    Admiral McGinn. Thank you, Mr. Chairman, Senator Inhofe, 
and distinguished members of the committee. It is a privilege 
for me to appear before you today, and I am deeply honored to 
be nominated by President Obama as Assistant Secretary of the 
Navy for Energy, Installations, and Environment. I'm thankful 
for the support of Secretary Hagel and Secretary Mabus.
    I am especially grateful to Senator John Warner for being 
here today with a strong vote of confidence and his unfailing 
wise counsel. He exemplifies the ideal of service to nation, 
and, throughout his many decades of that service, has 
consistently defined what it means to be a true statesman. I am 
humbled by his generous support.
    On a personal note, I am most grateful for the love and 
unwavering support of my wonderful wife, Kelly, who is with me 
today, and for the support of our four children, three 
grandchildren, and that of our entire extended family. They are 
the very center of my life and happiness. Thoughts about their 
future security and well-being, and that of all Americans, are 
why I seek the opportunity to continue to serve our Nation.
    Having proudly worn the uniform of our Navy for more than 
35 years in peace and war, I am keenly aware of the momentous 
challenges facing the Department of the Navy--indeed, facing 
all of our Military Services--during these times of great 
change. Among these are the need to maintain high mission 
readiness in an uncertain world, to build future capabilities 
in an environment of reduced budgetary resources, and, most 
importantly, to care for our sailors and marines, and their 
families.
    If confirmed, I'll look forward to leading a highly 
talented, dedicated, and hardworking team in our military and 
civilian workforce to ensure that the mission of the Department 
of the Navy is well served and supported. I pledge to wisely 
apply available resources to increase the availability and 
efficient use of all of our energy sources, to maintain our 
installations and training ranges in a high state of readiness, 
to preserve a high quality of life for our sailors, marines, 
and their families, to fully meet our obligation as good 
stewards of the environment, and to enhance safety in every 
aspect of our overall mission.
    If confirmed, I pledge to carry out the policies and 
directives of the President, Congress, the Secretary of 
Defense, and the Secretary of the Navy. My day-in and day-out 
priorities will be driven by the unwavering goal of fully 
supporting the combat effectiveness and operational efficiency 
of our Navy and Marine Corps team. In developing and applying 
these priorities, I look forward to working closely with 
Congress and with this committee.
    Thank you.
    Chairman Levin. Thank you so much, Admiral.
    Now let me ask you all the standard questions which we ask 
of all our nominees. In order to exercise our legislative and 
oversight responsibilities, these are the questions that we 
ask.
    Have you all adhered to applicable laws and regulations 
governing conflicts of interest?
    [All four witnesses answered in the affirmative.]
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    [All four witnesses answered in the negative.]
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    [All four witnesses answered in the affirmative.]
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    [All four witnesses answered in the affirmative.]
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    [All four witnesses answered in the affirmative.]
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    [All four witnesses answered in the affirmative.]
    Chairman Levin. Finally, do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly-constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such documents?
    [All four witnesses answered in the affirmative.]
    Chairman Levin. Thank you.
    Okay, let's try a 8-minute round this morning for our first 
round, and, if we need a second round, we'll do that.
    Mr. Preston, we have approved a fiscal year 2014 
authorization bill in committee. It's not yet gone to the 
floor, but in committee. We included a number of changes to the 
procedures for transfers of detainees from Guantanamo.
    We would provide greater flexibility to the Secretary of 
Defense to transfer Guantanamo detainees to foreign countries, 
if the Secretary determines doing so is in our national 
security interest and that steps have been, or will be, taken 
to substantially mitigate any risk of the transferred 
individual reengaging in terrorist activity.
    Our provision would also give the Secretary of Defense 
authority to allow the transfer of Guantanamo detainees to the 
United States for detention and for trial, if determined to be 
in the U.S. national interest and if it can be done safely.
    We would allow the temporary transfer of Guantanamo 
detainees to a DOD medical facility to prevent death or 
significant imminent harm.
    Mr. Preston, are you familiar with these provisions? If so, 
what are your views on increasing the flexibility of the 
Department of Defense and the administration in handling 
detainees at Guantanamo?
    Mr. Preston. Mr. Chairman, I will have to admit I'm a bit 
more familiar with the existing law, section 1028. I am aware 
of the legislative provision to which you're referring. As my 
current responsibilities don't include direct responsibility 
for detainee operations and the transfer process, I'm not as 
intimately familiar with it as perhaps others are.
    Certainly, the policy of the administration is to favor 
transferring these detainees, and I support the 
administration's policy. I think a critical element of the 
existing law and of proposed legislation would be to facilitate 
transfer in a fashion that ensures the protection of the 
national security.
    I'm afraid, beyond that, I don't have developed views, or 
sufficiently informed, to comment on the legislative proposal.
    Chairman Levin. All right, thank you.
    Mr. Preston, during the hearing on your nomination to be 
the CIA General Counsel, you were asked about so-called 
``enhanced interrogation techniques,'' and specifically whether 
you believed waterboarding was torture. I'd like to ask you 
that question here, in connection with your nomination to be 
the DOD General Counsel. Do you believe that waterboarding is 
torture?
    Mr. Preston. Mr. Chairman, I believe, under current law, 
waterboarding is torture. I will say that, in the course of my 
duties, by virtue of the cessation of the program by executive 
order in 2009, I have not had occasion to independently examine 
that question with reference to CIA activities since January 
2009. But, I believe that the state of the law is clear. In 
addition to the President, the Attorney General, the Nation's 
chief legal officer, has determined that waterboarding is 
torture. That's the law, in my view. I support the President's 
decision to ban waterboarding and the other so-called 
``enhanced interrogation techniques''.
    If I might add, though, at the time that the waterboard was 
used in connection with the former Detention and Interrogation 
Program, my understanding is that CIA personnel relied on what 
was the authoritative statement of the law at the time, the 
opinions issued by the Department of Justice. Of course, those 
opinions have since been disavowed and withdrawn.
    Chairman Levin. The Senate Select Committee on Intelligence 
(SSCI) has completed a report on the CIA Detention and 
Interrogation Program. Recently, the CIA provided a written 
response to the Intelligence Committee's report. As the CIA 
General Counsel, were you involved in the preparation of the 
agency's response?
    Mr. Preston. I did have some involvement. I did not direct 
the effort.
    Chairman Levin. Are there any portions of that response 
that you disagreed with?
    Mr. Preston. Sir, I think the agency's comments are an 
appropriate response to the SSCI report. For my part, I don't 
believe there's anything legally objectionable. That's the 
determination I need to make.
    I must say, I have to rely on those with far greater 
familiarity with the report and the record when it comes to 
facts and findings. But, I accept the conclusions and support 
the recommendations, and I support the Director's decision to 
forward these comments to the committee. Frankly, it's my hope 
that they will be useful to the committee as it continues to 
consider the matter.
    Chairman Levin. For the record, there are some significant 
differences between many members of the committee and that 
response, and it's very possible that there's going to be some 
additional questions for you about your awareness of the 
response and your agreement or disagreement with certain 
statements that are in that response. But, we'll save that for 
the record.
    Mr. Preston. Very well.
    Chairman Levin. There's been considerable discussion inside 
and outside Congress about the scope of detention authority 
pursuant to the authorization for the use of military force, 
particularly as it pertains to U.S. citizens. In your view, if 
a U.S. citizen joins a foreign army, a foreign military force, 
and is captured while engaged in combat against our forces, do 
we have the authority, under the Law of Armed Conflict, to hold 
that person in military custody?
    Mr. Preston. In terms of the availability of indefinite Law 
of War detention for a U.S. citizen captured on U.S. soil, I 
believe that the law is unsettled, but the President has made 
clear that it is not his intent to authorize any such Law of 
War detention for U.S. citizens captured on U.S. soil.
    Chairman Levin. If that citizen is involved with a foreign 
army in attacking say, a U.S. Navy base, is that person 
detainable under the Law of War?
    Mr. Preston. Ordinarily, an enemy combatant is, but I 
understand that this has been the subject of litigation and 
that the issue hasn't been resolved by the courts.
    Chairman Levin. If an American citizen is captured in 
combat, having joined a foreign army outside of the United 
States, under the Law of War, may he or she be detained?
    Mr. Preston. Again, I believe, as an enemy combatant, he or 
she could. I, frankly, don't know whether there's remaining 
doubt, in terms of litigation of that issue.
    Chairman Levin. What is your understanding of what 
constitutes an ``associated force'' that is subject to the use 
of military force under the 2001 authorization? I'll ask two 
questions, here; it'll be my last one--what is your opinion 
about the impact of the end of combat operations in Afghanistan 
on the application of the authorization for the use of force to 
al Qaeda and its associates elsewhere than Afghanistan?
    Mr. Preston. I'd be happy to answer both of those, sir, 
starting with the first.
    Of course, the language of the Authorization for Use of 
Military Force (AUMF) refers to groups and individuals 
responsible for the September 11 attacks and those who harbored 
them. As you well know, that has obviously been applied to al 
Qaeda and the Taliban and interpreted also to reach associated 
forces.
    My understanding of the concept of associated forces is 
that it is quite narrow. It has been described as requiring an 
organized armed group that has entered the fight alongside al 
Qaeda and as a cobelligerent with al Qaeda in hostilities 
against the United States and its coalition partners. It's not 
any group that is ideologically aligned with al Qaeda. It would 
not be any group that poses a threat to the United States 
without having joined the fight with al Qaeda. But, it does 
reach groups that have joined the fight with al Qaeda and 
against the United States.
    Chairman Levin. Wherever they may be.
    Mr. Preston. I believe that is correct.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Mr. Preston. Would you like me to answer your second 
question?
    Chairman Levin. Please. Yes, if you could do it briefly.
    Mr. Preston. Just only to--I'm sorry, Senator--only to say 
that the end of the U.S. combat role in Afghanistan will not 
necessarily mark the defeat of al Qaeda and the end of the 
conflict with al Qaeda. It may well, I think, drive additional 
attention to the state of the conflict. But, the withdrawal of 
forces from Afghanistan does not in any per-se way mark the end 
of the conflict.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    When Admiral McGinn made his opening statement, I was 
reminded of something. While Senator Warner is still here, I'll 
repeat it.
    I'm impressed with your children and grandchildren. 
However, I have 20 children and grandchildren. [Laughter.]
    Admiral McGinn. I'll work on it, Senator.
    Senator Inhofe. You have some time, before you're my age.
    Admiral McGinn. Yes, sir.
    Senator Inhofe. I can remember, I'd always take pictures--
candid pictures, and we had a Christmas card that would come 
out every year. Senator Warner, over there, said, ``You know, 
you're the only one who sends a card out where you have 22 
members of the family, and not any 2 are looking the same 
direction.'' [Laughter.]
    You don't want to make that mistake.
    Let me share with you, Mr. Preston, my feeling. During the 
Benghazi incident, I was very much concerned about that. Chris 
Stevens, the Ambassador who was killed, was a friend of mine, 
was in my office a very short period of time before that 
happened. He talked about the threats that were there, the 
dangers in that general area. During the time that the 
September 11 attack took place, I don't think anyone is really 
certain as to whether that was an organized terrorist attack. 
However, when the Annex, that was the next morning, took place, 
Mr. Clapper, who was, at that time, the Director of National 
Intelligence, made the statement. He used the word 
``unequivocal''. It was unequivocal--this is the morning after 
September 11, during the Annex attack--that it was committed by 
organized terrorists at that time. After we had hearings, in 
this room, with many other members, I asked the same question 
to other individuals. They all agreed.
    Now, I think one of the reasons was the equipment that was 
used, the six mortar rounds and all of that; it became very 
convincing. Anyway, these individuals all said that it was 
unequivocal that it was an organized attack.
    The first question I'd ask you is: What was your position 
during September 11, at that time?
    Mr. Preston. Of last year, sir?
    Senator Inhofe. Yes.
    Mr. Preston. I was General Counsel at CIA.
    Senator Inhofe. All right. What was your role in the 
Benghazi matter?
    Mr. Preston. Sir, first, let me just mention what first 
comes to mind when you raise Benghazi, and that is that it was 
a terrible tragedy for our country. We lost four good 
Americans.
    My role in the aftermath of Benghazi was extremely limited. 
I had----
    Senator Inhofe. Okay, I'm really sorry to cut you off. I 
have to do it, because of the time constraints.
    Mr. Preston. Yes, sir.
    Senator Inhofe. I think I know the answer to this question. 
Did you compose, edit, or modify, in any way, the talking-
points information which were used by Ambassador Rice and the 
White House?
    Mr. Preston. No, sir.
    Senator Inhofe. I didn't think you did.
    But, nonetheless, I look at this, and I know that this 
sounds like an extreme position, but I'm familiar with coverups 
in the history of this country--and I'm talking about the 
Pentagon papers, Iran-Contra, Watergate, and all of that--I 
just can't think of one that is more egregious than this. 
Because 5 days before she was sent to the American people, on 
that Sunday, all of the intelligence people that we have talked 
to before that knew, at the time, that it was an organized 
terrorist attack and not an attack that had anything to do with 
the video.
    I say this because we have to keep talking about this. It's 
something that everyone's hoping will go away, and it's not 
going to go away.
    The question I would have, you've already answered to my 
satisfaction, in terms of your role or your lack of role.
    Now, on GTMO, the Chairman had several questions. I, again, 
have what is considered by some to be a pretty extreme position 
on GTMO. For one thing, it's one of of the few good deals that 
we have in the Government. I think we pay $4,000 a year, and 
Castro doesn't collect, about half the time. The facility down 
there, it's hard to go down and see what we have and ask the 
question, why is it we're not using that? What is this aversion 
to keeping people down there that this administration has?
    Now, I bring this up because, obviously, you will be 
dealing with this. I have statements that you've made, on 
military commissions. You said, ``Military commissions are an 
appropriate forum for trying offenses against the law and 
order. Military commissions provide appropriate processes for 
the trial of alien underprivileged enemy belligerents.'' And 
``I am not aware of any need for changes to the 2009 Military 
Commissions Act.''
    Now, these are statements that you've made in the past. Do 
you agree with these statements today?
    Mr. Preston. I do.
    Senator Inhofe. Okay. I do, too.
    I'm not a lawyer, so I feel a little insecure talking about 
this in a lot of detail to someone who is, and who is a 
professional. But, I do know what an expeditionary legal 
complex is. I've been through this down there, and I've seen 
the advantages that we have there. I also recall that, 4 years 
ago, when this President--it may have been, actually, before he 
took office--talked about the fact that we need to transfer 
these people to the United States, one of the suggested 
locations happened to be in my State of Oklahoma. It was in 
Fort Sill. I went down and I talked to a Sergeant Major down 
there by the name of Jackson, and she said, ``What is wrong 
with the people in Washington?'' She had had two or three 
deployments to GTMO and said, ``We have the ideal situation 
there.'' Other than the fact that the terrorists and many 
people who are our enemies think that this is something that we 
should not keep open, can you think of any reason why we're not 
using that today to its fullest capacity for detention and for 
trials?
    Mr. Preston. Sir, I think you make a good point in what has 
been a ongoing and, I think, at times, intense policy debate. 
For my part, if I'm confirmed, it'll be my duty and honor and 
burden to see to the proper application of the law as it 
relates to detainee operations and as it relates to the 
military commissions process.
    Senator Inhofe. Okay. I do want to follow up with you in 
some detail, as time goes by, and reconsider some of the 
decisions that have been made, in private conversations.
    Mr. Preston. I would welcome that.
    Senator Inhofe. Admiral McGinn, you and I were together and 
fought the unsuccessful Battle of Vieques some 12 years ago.
    Admiral McGinn. Yes, sir.
    Senator Inhofe. I can recall, at that time, the entire Navy 
was very helpful to me. We had Vieques, a place that we could 
use for joint training. The Marine Corps--you remember this, 
John--the Marines and the Navy were--and because there was 
one--an unfortunate thing that took place, and a lot of the 
environmentalists said, ``No, we can't use this.'' I can 
remember going over to Puerto Rico and saying, ``If you guys 
insist on closing this thing down, it's going to have an 
economic effect on Puerto Rico, on Roosevelt Roads, and all of 
these things.''
    Anyway, you were on my side on that. As I recall, we went 
to San Clemente, and you were with me at that time--maybe some 
other places. But, I also went all the way around the world, 
trying to find a place--we couldn't find a place that could 
replicate that type of training. I appreciate that.
    I bring this up for two reasons. One is an issue that's 
taking place right now at Twentynine Palms. I know that perhaps 
if I were from California, I might have different feelings 
about this--no, I doubt if I would, because that's a facility 
that our marines use that I don't think we can replicate 
anyplace else. Can you tell me any justification for not taking 
the option--and we know the three options that are out there; 
you're familiar with these?
    Admiral McGinn. Right.
    Senator Inhofe. Of expanding that area and the capability 
of our Navy to train there?
    Admiral McGinn. Based on my knowledge of Twentynine Palms 
and my experience, having fired rockets and dropped bombs on 
Twentynine Palms when I was getting ready for combat, I 
recognize the critical need to do live-fire training and to 
train like you fight. That is what the marines want to do, and 
that's why we need to expand the training range at Twentynine 
Palms----
    Senator Inhofe. Okay. Okay, and I agree with that. I know 
my time has expired. Just one last thing.
    An area where we don't agree is in the use of a lot of our 
funds, that would otherwise be used for readiness and for 
defense purposes, for biofuels, and these other things. We'll 
have a chance to talk about this in the future, and we have in 
the past.
    Admiral McGinn. I look forward to it, Senator.
    Senator Inhofe. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning. Thank you all for your willingness to serve.
    I'd like to start off, this morning, by saying I can think 
of no better nominee for the position of Assistant Secretary of 
the Navy for Energy, Installations, and Environment than 
Admiral McGinn.
    Admiral, you've served 35 years in uniform, and you've been 
a steadfast advocate for our sailors, and you've been leader on 
the national security issues, writ large, and you've earned my 
deepest respect, and I think everybody's on the committee. I'm 
not alone in that regard, and I have a letter from the Center 
for Naval Analyses (CNA) Military Advisory Board, an 
organization which consists of some of our finest retired 
three- and four-star admirals and generals, Mr. Chairman, and 
they've written to the committee in strong support of the Vice 
Admiral's nomination, and I agree with them completely. I'd 
like to submit the letter for the record, if I might.
    Chairman Levin. Admitted. It will be made part of the 
record.
    [The information referred to follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Udall. Thank you for that.
    Again, Admiral, I look forward to working with you, as does 
the committee, when you're confirmed.
    If I could, I'd like to direct my questions to Mr. Preston, 
to start. In your current role as General Counsel for the 
Central Intelligence Agency, you've been at the table when some 
important decisions have been made. I sit on both this 
committee and the Select Committee on Intelligence, and I have 
some concerns that I would like you to consider addressing.
    In your prehearing questions for your 2009 nomination 
hearing to be the CIA General Counsel, you said the following, 
referring to the Justice Department's Office of Legal Counsel 
(OLC) and the CIA's Office of General Counsel (OGC), and I'll 
quote back to you what you said. ``Where OLC's analysis will 
depend heavily on factual circumstances, as represented by the 
Agency, it is important that the OGC ensure that the 
information provided is as complete and accurate and current as 
possible. I am not aware of any material deficiencies in this 
regard, but wish to underscore the importance.''
    Do you still agree with this view? What do you believe a 
General Counsel's responsibility is if he discovers that his 
Department or Agency provided inaccurate information? If the 
resulting OLC opinion, based on inaccurate information, became 
public, do you see a need to correct the public record?
    Mr. Preston. Senator Udall, I think this is a very 
important question. I believe that the description of the 
responsibility, from my earlier question from 2009, would still 
pertain. If anything, I have a much richer understanding and 
appreciation for the importance of the communication between 
Agency counsel and OLC. My own experience has been, 
particularly for the most sensitive matters at the Agency, to 
have near-continuous communication and one that's characterized 
by ensuring that the factual basis that my colleagues at OLC 
need in order to best inform and advise decisionmaking and 
their own opinions is provided.
    I think one of the things that the Agency has focused on in 
recent years is an effort, not only to practice that, but to 
try to institutionalize it in some fashion, with respect to our 
most sensitive programs, to make sure that there is a 
purposeful effort to ensure that opinions that we may be 
relying on, that the factual basis for that opinion has not 
materially changed.
    Senator Udall. This is a very important topic, as you know 
and you've referenced. I may want to follow up with some 
additional questions for the record, but I appreciate your 
initial comments.
    Let me turn to the difference between covert action and 
secret military operations. As I mentioned, I sit on this 
committee, I sit on the Intelligence Committee, as well, and I 
wanted to run through a series of questions and then ask you to 
respond to them all at once. Let me start here.
    In your view, when does a secret military operation meet 
the statutory definition of ``covert action'' and require a 
finding, and when does it not?
    My second question: If the military refuses to answer the 
public's questions about a reported operation, does it become a 
covert action? If not, what is the basis for that denial? As an 
example, why are unacknowledged 1208 assistance programs not 
covert action?
    Finally, in this easy set of questions for you----
[Laughter]
    Finally, under what circumstances can a secret military 
program, as distinct from a particular tactical operation, be 
briefed only to the chairman and ranking member?
    I know that's a big list of questions. I'm happy to restate 
them, if necessary, but I'd like to hear your answers.
    Mr. Preston. Let me start with the first question, and at a 
general level.
    What makes, I think, an action a covert action is laid out 
in the National Security Act of 1947, as amended, where action 
is taken for the purposes of influencing certain conditions 
abroad and done in a fashion where the role of the U.S. 
Government is neither apparent nor acknowledged. Of course, 
with respect to covert action, it's done pursuant to a finding, 
and that's, historically, in an area in which the CIA operates. 
I'm perhaps most familiar with the application of those 
concepts to operations pursuant to finding, at least the 
historical practices there.
    Your questions raise, I think, an important issue about 
secretive or clandestine military operations and the extent to 
which they are neither apparent nor attributed to the 
Government and would properly be under covert action 
authorities. As I'm sure you know, that same provision of the 
National Security Act does accept traditional military 
activities, and there's quite a bit of law and lore that has 
gone into, as I understand, what we consider traditional 
military activities as an exception to covert action and the 
requirement of proceeding under those authorities.
    This is an issue I'm obviously familiar with in my current 
position, but I haven't, to tell you the truth, really wrestled 
with how one would advise the U.S. military on the precise 
parameters of that concept and the precise concept of 
attribution in the military context. This is an area that I 
would expect to focus on early and intensely, if I have the 
privilege of being confirmed.
    Senator Udall. Thank you, Mr. Preston. What I think I'll do 
is review your responses, and, if necessary, submit some 
additional questions to you for the record.
    Mr. Preston. Thank you.
    Senator Udall. In the remaining time I have, I want to turn 
to Admiral McGinn and just give him an opportunity to talk 
about what would be your top priority as Assistant Secretary of 
the Navy.
    Admiral McGinn. Yes, sir.
    As the title implies, it involves energy, installations, 
and environment. Not in the title, but part of the 
responsibilities are safety for operations afloat and ashore. I 
want to make sure that the Navy meets near-term warfighting 
readiness goals. We have a very fine group of men and women in 
the Navy and Marine Corps that are out there on the tip of the 
spear, as we say, and we have to make sure that they are well 
supported, and those following them are fully ready to go out 
there and relieve them. That's job one, that is the lens 
through which I want to look at all of those areas of 
responsibility.
    We also have an obligation, I believe, to look to the 
future, to try to create strategic and operational options for 
our forces. This has been the primary focus area of Secretary 
Mabus in establishing his energy goals. I intend to look at 
that whole program intently to make sure that we are making the 
right investments to balance the compelling needs of near-term 
readiness with the compelling needs of looking over at the 
strategic environment of the future and making sure that we 
have the capability to fight the way we'll need to.
    Senator Udall. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Udall.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank all of you for your service to the Nation, 
and to your families, for everything you have done for our 
country.
    Mr. Rymer, I would just like to ask you about a recent DOD 
IG audit of sexual assault cases, it discovered that more than 
10 percent of the cases contain flawed investigations. Are you 
concerned about that error rate? How do you think you'd change 
that, moving forward?
    Mr. Rymer. Yes, sir, I am very concerned about it. I think 
the issues concerning sexual assault are certainly something 
the IG has to pay more attention to than perhaps the office has 
in the past. That particular report was completed pursuant to 
the IG's responsibility to provide oversight over the military 
criminal investigative organizations. That's the Army Criminal 
Investigation Command (CID), Naval Criminal Investigative 
Service (NCIS), and the Air Force Office of Special 
Investigations (OSI).
    My concern is that 10 percent is a high number. Perhaps 
more concerning, though, is the variations in process and 
procedure used among the different Services to investigate 
sexual assault crimes. I think the role of the IG is to 
encourage consistency and identification of best practices, and 
that's something I would try to do very strongly with those 
organizations.
    Senator Donnelly. Yes, I was just going to follow up with 
the best-practices point that you just made. Do you intend to 
look and say, ``This is working, this is producing the best-
quality information we could possibly have, the best, most 
accurate information,'' and share it with each of the different 
branches?
    Mr. Rymer. Yes, sir. I think that report--which is a 
lengthy report--contains a lot of statistics and a lot of 
information that could help identify, coach, and counsel, which 
of those investigative techniques may be the best. Yes, sir.
    Senator Donnelly. Thank you very much.
    Vice Admiral McGinn, in Indiana, our Active military base 
is Crane Naval Warfare Center. One of the things that we do at 
Crane is, it is shared with the Army ammunition activity, and 
it is shared in order to maintain the infrastructure, reduce 
costs by sharing costs, such as roads, power, distribution, 
security, et cetera. I was wondering what your thoughts are on 
joint basing as a means to mitigate costs for the Navy.
    Admiral McGinn. Yes, sir. I think, where it makes sense, 
Senator, we need to look at joint basing. I have visited Crane 
several times during my time on Active Duty, and even since 
then, and it is a national asset. The work that goes on there--
in addition to being a weapons storage and processing area, 
they are what I would describe as a world-class battery 
forensics facility, there's direct support for our Navy SEALs 
and their technology needs. I would view any future 
organization of Crane with the criteria of the ability to not 
detract from the key missions that are being undertaken on a 
daily basis by the folks at Crane.
    Senator Donnelly. We look forward to your confirmation. 
Once you are confirmed, we would like to invite you back. A 
time that might be ideal is--Indiana University is playing Navy 
in football, in Bloomington just about 15 miles away, on 
September 7.
    Admiral McGinn. Yes, sir.
    Senator Donnelly. The Friday before, I assume everyone will 
be busy at work at Crane----
    Admiral McGinn. Yes, sir. My only response would be, ``Go 
Navy''. [Laughter.]
    Senator Donnelly. I thought it would be.
    Mr. Rymer, again, one of the things that this whole panel 
has been working on, but that I have passionately tried to dig 
into, has been suicide prevention for our military. We have 
programs in place. I was wondering what oversight you intend to 
provide on the suicide prevention programs we have in place.
    Mr. Rymer. Sir, that is certainly something that I have 
added to the list of priorities, if confirmed. It's a very 
important issue for me. Having experience with that in the 
military, I'm very familiar with the programs, at least that 
the Army has in place, for suicide prevention. I think the role 
of the IG, perhaps, could be to do an evaluation of the 
effectiveness of the programs, and the money spent in each of 
the Services, to compare those. There is some oversight role, 
in terms of program effectiveness.
    Senator Donnelly. I know you know this statistic, but we 
lost more servicemembers to suicide last year than we did in 
combat.
    Mr. Rymer. Yes, sir. It's a national tragedy. Yes, sir.
    Senator Donnelly. Mr. Preston, in regards to looking 
forward and what we're dealing with in Syria at the present 
time, and we see the al Nusra Front, which certainly has not 
gotten weaker, may be picking up strength. I was wondering your 
views in regards to the AUMF and its application to al Nusra, 
do they directly affect the United States, or do you think that 
the AUMF applies to al Nusra Front in Syria?
    Mr. Preston. Senator, let me refrain from revealing any 
current discussions on that score.
    Senator Donnelly. Understood.
    Mr. Preston. I think the question would be whether al Nusra 
is al Qaeda or is an associated force within the confines of 
how that term has been applied. That is a judgment that DOD 
would make internally. I haven't previously participated in 
that judgment, so I'm ill-equipped to provide a personal view. 
But, again, I expect this is an area that I would be focusing 
on, early and intensely.
    Senator Donnelly. I appreciate that. The committee itself 
is very focused on the Syrian issue and the challenges we face 
there, and we look forward to your participation.
    To all of you, thank you very much for your service to the 
country. We look forward to continuing to work with you in the 
years ahead.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to begin by joining my colleague, Senator Donnelly, 
in thanking you for your service. A number of you have records 
of military service, and appreciate the sacrifices that you've 
made, all of you, in the course of your public service.
    You will have positions that may not make you household 
names. We frequently confirm people here, who are in the 
headlines, but your jobs are as important as any to our 
national security and national defense, and you know and we 
know that we couldn't do the job that we do in the farflung 
places of the world without the support that you give them, 
day-in and day-out. That goes for the many hardworking people 
who will be under you, under your command, as well as your 
colleagues in the Pentagon and throughout this country in our 
national defense. In thanking you, I thank them, and I think my 
views are shared widely.
    Mr. Preston, to begin with an area that I think is very 
important to all of our men and women in uniform, the issue of 
sexual assault in the military, you were asked, in the 
questions that were submitted to you about this subject, and 
particularly about taking the decisionmaking authority in 
beginning prosecutions--the charging authority or convening 
authority--out of the chain of command and having it go to a 
specially-trained and independent prosecutor. Can you give me 
your view, as an attorney and as one who may not have been a 
prosecutor, but certainly is familiar with the skills and 
training and expertise that's required--wouldn't it make sense 
to have these decisions made by an individual who has a wealth 
of experience, who's tried cases, who knows what the evidence 
is going to be and has to be, and knows what the evidentiary 
issues are? Doesn't that make sense to you, as an attorney?
    Mr. Preston. Let me say that I appreciate the salutary 
intent behind the idea. I have to say that I'm not sufficiently 
informed on the various legislative proposals to have formed a 
fixed personal view on it. I think the concern that has been 
expressed about that relates to the role of the military 
justice system as an integral part of the command structure. 
There's a reason for that, because the military justice system 
is one of the instruments by which command maintains military 
discipline----
    Senator Blumenthal. I understand that point where you know 
a lot about the Uniformed Code of Military Justice, I am 
certain, and I know that you don't have a fixed personal view.
    Mr. Preston. Yes.
    Senator Blumenthal. Maybe you have a flexible personal 
view. But, I'm really asking about a more abstract question. I 
know that one of the arguments against taking it out of the 
chain of command is the good order and discipline of the 
military unit, and the cohesion of the military unit. I respect 
that argument. But, simply as an attorney, as the General 
Counsel of the Department of Defense, wouldn't you value the 
experience of a trained prosecutor in making these decisions?
    Mr. Preston. I think that experience would be valuable, 
either in the decisionmaker or in someone who is advising the 
decisionmaker. I think you're right that that experience base 
would have value.
    Senator Blumenthal. I'd like you to examine these issues, 
and perhaps supplement your response that you've given, which 
is, ``I am not now in a position to express a personal view,'' 
much as you've just said right now, and perhaps articulate, in 
a little bit more detail, what your views would be on the 
proposals that are pending before Congress and that are likely 
to be considered when the National Defense Authorization Bill 
reaches the floor. I would appreciate that.
    Mr. Preston. I'd be happy to take a crack at that. I know 
this is a complex issue, and an incredibly important one. What 
I hesitate to do is to express, as an informed, fixed view, 
something that I haven't had, really, an opportunity to 
formulate. But, I would be happy to try to be as responsive as 
possible.
    Senator Blumenthal. Thank you.
    [The information referred to follows:]

    As the Secretary of Defense has stated, eliminating sexual assault 
from our Armed Forces is one of the Department's top priorities and, if 
confirmed, I look forward to helping achieve that goal in my capacity 
as the chief legal officer for the Department.
    It is my personal view that there is great merit to many of the 
proposals currently pending before Congress. In particular, I support 
efforts to ensure that individuals convicted of sexual assault do not 
serve in the military, to supplement the breadth and availability of 
support services for victims, and to enhance and standardize the 
oversight and investigation of sexual assault allegations. These 
proposals represent concrete steps that should strengthen the 
Department's overall sexual assault prevention and response programs 
and efforts.
    With regard to eliminating the authority of commanders to refer 
charges or convene court-martials, I think special care should be taken 
before removing commanders from the administration of military justice, 
which would represent a fundamental change to the military justice 
system that is likely to have second- and third-order effects. As I 
understand it, significant questions have been raised about how such a 
proposal could be implemented in practice and its potential effect on 
the expeditious and efficient administration of military justice.
    Secretary Hagel recently expanded the role of lawyers in the sexual 
assault offense disposition process by requiring the Secretaries of the 
Military Departments to mandate no later than December 1, 2013, that 
judge advocates serve as investigating officers for all Article 32 
hearings on such charges. As this illustrates, the role of lawyers in 
the military justice system is not immutable, and no potential solution 
to achieve the eradication of sexual assault in the military is off the 
table, including increasing the role of lawyers and decreasing the role 
of the commander. Indeed, the panel established by Congress to review 
and assess the systems used to investigate, prosecute, and adjudicate 
crimes involving sexual assault has been tasked specifically to assess 
the strengths and weaknesses of the current role of commanders in the 
administration of military justice. (National Defense Authorization Act 
for Fiscal Year 2013, Pub. L. No. 112-239, Sec. 576(d)(1)(G), 126 Stat. 
1632, 1760 (2013)). If confirmed, I will study the panel's conclusions 
in advising the Secretary on this issue.

    Senator Blumenthal. Turning to Mr. Rymer, if I may, are you 
familiar with the Special Inspector General report on the MI-17 
helicopter sale by the Russian export agency, Rosoboronexport, 
to the Afghan Government, paid for by American taxpayer 
dollars?
    Mr. Rymer. Sir, I'm sorry, I'm not, other than what I've 
read in the press. If I am correct, I believe that report was 
done by the Special Inspector General for Afghanistan 
Reconstruction, an office separate and independent from the 
Department of Defense Office of Inspector General. I'm not, 
sir, other than just what I've read in the press.
    Senator Blumenthal. I would appreciate your reviewing that 
report. My view is that there is absolutely no justification 
for the purchase of Russian helicopters, when there are no 
Afghan pilots trained to fly them, no mechanics trained to 
repair them. The United States will spend, eventually, more 
than a billion dollars. We've already spent half a billion, and 
we've just contracted for another half billion. If there are 
any helicopters to be purchased and there is sufficient 
justification, my view is, they ought to be American 
helicopters. But, the first question is whether that sale of 
helicopters to the Afghans makes any sense at all, in terms of 
the national defense issues that are raised by the sale, and 
particularly no justification for purchase of helicopters from 
a Russian-controlled export agency that is also selling arms to 
Syria, used for the slaughter of its own people by a dictator 
whom we have vowed to overthrow. We are, in effect, supporting 
Bashar Assad.
    I would appreciate your reviewing that report and giving us 
your views of it, in writing.
    Mr. Rymer. Yes, sir.
    [The information referred to follows:]

    The Special Inspector General for Afghanistan Reconstruction 
(SIGAR) assessed the extent to which the Afghan military has the 
capacity to operate and maintain its current and planned fleet of Mi-17 
helicopters and the effectiveness of U.S. Government oversight of two 
task orders to provide maintenance, logistics, and supply support to 
the Afghan military (Afghan Special Mission Wing: DOD Moving Forward 
with $771.8 Million Purchase of Aircraft that the Afghans Cannot 
Operate and Maintain, SIGAR Audit 13-13, June 2013). It would not be 
appropriate for me to comment on the SIGAR report while my nomination 
is pending; however, if confirmed, I will assess to what extent further 
audit or inspection work by the Department of Defense (DOD) Inspector 
General (IG) regarding the purchase of Mi-17 helicopters would be 
appropriate.
    I am aware that the DOD IG has issued several reports that have 
examined aspects of the Mi-17 helicopter program. On September 28, 
2012, the DOD IG issued an assessment report, ``Assessment of U.S. 
Government and Coalition Efforts to Train, Equip, and Field the Afghan 
Air Force,'' (DODIG-2012-141), which, in part, addresses challenges 
presented in training and equipping Mi-17 flight and maintenance 
personnel. In an audit report, ``Mi-17 Overhauls Had Significant Cost 
Overruns and Schedule Delays,'' September 24, 2012, (DODIG-2012-135), 
the DOD IG recommended the U.S. Army consider whether suspension and 
debarment is warranted for a Russian firm subcontracted to overhaul Mi-
17 aircraft.
    Subsequent to this hearing, the DOD IG issued audit report DODIG-
2013-123, ``Army Needs To Improve Mi-17 Overhaul Management and 
Contract Administration.'' The report recommended that the Army review 
the contracting officer's performance for inappropriate actions, recoup 
$6.2 million in advance payments to the contractor for services never 
provided, and review the Program Office actions which established an 
inappropriate $8.1 million parts inventory.

    Senator Blumenthal. Since my time is expired, I want to 
simply thank you again, every one of you, for your service to 
our Nation. I look forward to working with you.
    Chairman Levin. Thank you very much, Senator Blumenthal.
    We're going to have a 3-minute second round. If we need 
more than that, we'll have a third round.
    Dr. Rabern, in your responses to the committee's advance 
policy questions, you said that, while you recognize the 
importance of having the Navy's book auditable by 2017, that 
you're not familiar with the Navy's progress toward achieving 
the statutory deadline of 2014 for a statement of budgetary 
resources or of 2017 for auditability. Now, this committee's 
placed a great deal of emphasis on having the Department--
indeed, all of our Departments--meet these deadlines. If 
confirmed, will you commit to quickly becoming more familiar 
with the Navy's progress towards these important deadlines? 
Will you come back, within 60 days of your confirmation, to 
report on the Navy's progress and any areas that need 
improvement or attention?
    Dr. Rabern. Yes, Mr. Chairman, I would be happy to do that. 
If confirmed, sustained audit readiness will be one of my 
highest priorities. It is critical in making sound fiscal and 
readiness decisions. I will rely on the expertise of the 
military and civilian personnel who have that experience on the 
staff within the Department of the Navy, in addition to my own 
experience in other Government agencies. I look very much 
forward to working with you and your staff in meeting these 
audit readiness requirements.
    Chairman Levin. Thank you.
    Mr. Rymer, the Office of the Inspector General receives 
many requests from congressional committees and from Members of 
Congress for audits and investigations of matters of public 
interest. Will you ensure that the Office of the Inspector 
General continues to respond to congressional requests for 
audits or investigations in a prompt manner and in a manner 
consistent with past practices?
    Mr. Rymer. Yes, sir, I will.
    Chairman Levin. Under what circumstances do you believe 
it's appropriate for the Office of the Inspector General to 
redact some of the contents of any information contained in a 
report provided to Congress?
    Mr. Rymer. Sir, I think the process that's in place now, is 
that information is not redacted if the request is from the 
chairman or the ranking member, in their capacity of acting on 
behalf of the committee. If it's from an individual member, I 
believe it's treated as a release to the public, and there are 
redactions.
    Chairman Levin. But, to the ranking member and to the 
chairman, it is unredacted?
    Mr. Rymer. It's my understanding, yes, sir.
    Chairman Levin. Thank you.
    In October 2012, the President issued a policy directive 
relating to the protection of whistleblowers who have access to 
classified information. This directive is designed to ensure 
that employees serving in the Intelligence Community or who are 
eligible for access to classified information can effectively 
report waste, fraud, and abuse while protecting classified 
national security information. Are you familiar with this 
directive? What do you understand will be your role, if 
confirmed, in implementing it within DOD?
    Mr. Rymer. Yes, sir, I am somewhat familiar with it. As I 
understand, in the DOD Inspector General if complaints are 
received, the role of the Inspector General in the 
whistleblower process is to investigate any claims or concerns 
about retaliation. That would be my main concern, sir.
    Chairman Levin. All right. But, if classified information 
is presented to those of us that have clearance, which is all 
of us, do you see any problem with the whistleblower presenting 
to a person with clearance, including Members of Congress, that 
information?
    Mr. Rymer. I think that the process, sir, as I understand 
it, is when the information comes to the IG, the IG tries to 
make a determination as to whether it is classified and 
presents an urgent need. Then I believe there's a role for the 
Secretary of Defense to release the information to Congress. 
Or, I may be confusing that with another process.
    Chairman Levin. Well, you can clarify that for the record.
    Mr. Rymer. Yes, sir, I will.
    [The information referred to follows:]

    Executive Order and Department of Defense (DOD) guidance that 
establish the requirements for access to classified information permit 
DOD employees, military personnel, and contractor employees to have 
access to classified information provided the individual possesses a 
valid and appropriate security clearance, have executed a nondisclosure 
agreement, and have a valid need-to-know the information in order to 
perform a lawful and authorized governmental function. Such individuals 
provided access to classified information have a duty to protect that 
information from unauthorized disclosure.
    Congress has established the Intelligence Community Whistleblower 
Protection Act (ICWPA) as the authorized means to disclose complaints 
of classified wrongdoing to Congress. The ICWPA (title 5 U.S.C. 
Appendix Sec. 8H) provides a secure way for employees, or contractor 
employees, of the four DOD intelligence agencies--the Defense 
Intelligence Agency (DIA), National Geospatial-Intelligence Agency 
(NGA), National Reconnaissance Office (NRO), and the National Security 
Agency (NSA)--to tell Congress about classified wrongdoing. DOD IG 
reviews the complaint, and if it determines it to be credible and 
present an ``urgent concern,'' forwards it to the Secretary of Defense 
(SECDEF), who forwards it to Congress.
    If the complaint or information does not meet ICWPA standards, the 
complainant may contact Congress directly, but only after informing 
SECDEF, through DOD IG, of their intent to contact, and getting SECDEF 
guidance, through DOD IG, on the appropriate way to do so.
    The ICWPA is basically a means to get complaints that involve 
classified information to Congress. ICWPA does not provide protections 
against reprisal, however, under the new protections provided by 
Presidential Policy Directive-19 (PPD-19), a qualifying employee who 
files an ICWPA complaint may not be reprised against for doing so.

    Chairman Levin. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me just briefly touch on it.
    Mr. Preston, I wasn't there, and I haven't talked to him, 
but apparently, Congressman Ruppersberger made a request for 
information from you, getting back to the Benghazi issue. I 
believe your response was, ``In light of the criminal 
investigation, we are not to generate statements with 
assessments as to who did this, et cetera, even internally, not 
to mention for public release.''
    The question would be, why would you try to prevent 
intelligence information to go to the Vice Chairman of the 
House Intelligence Committee? Now, it's possible to do that in 
a classified way. I would question that there's an 
investigation going on, unless you were referring to the FBI 
investigation. Is that what you were referring to?
    Mr. Preston. Yes, sir. I'm pleased to respond to that.
    As I indicated in your earlier question, I had no 
substantive involvement with respect to the talking points--
that is to say, the preparation and the interagency 
coordination of the talking points that the House Permanent 
Select Committee on Intelligence (HPSCI) ranking member had 
requested from the Agency. There is the one email that I would 
like to flag in that regard, which is to say, in the course of 
the Agency's responding to that HPSCI request, it came to my 
attention, and I sent an email to the folks working on it, 
essentially reminding them that there was a criminal 
investigation pending and that we had been admonished not to 
generate material that could complicate that investigation.
    Typically, when you're in an evolving situation and there's 
a criminal investigation been launched, you want to avoid----
    Senator Inhofe. Was there a criminal investigation 
launched?
    Mr. Preston. That's my understanding.
    Senator Inhofe. The only investigation that I heard--and 
I'm asking this, because I don't know, Mr. Preston--was the FBI 
investigation. Of course, they weren't even there until 15 days 
after this took place. Is there an investigation, other than 
that, going on?
    Mr. Preston. No, it's the investigation initiated by the 
FBI in the immediate aftermath of the attacks. We were informed 
of that investigation and instructed that the FBI was 
investigating, other agencies were not to investigate, not to 
do anything that would interfere, generate material that would 
complicate the investigation.
    This is not atypical. When you have an investigation, early 
on in an evolving situation, you want to avoid speculation or 
tentative things that may complicate a later prosecution. You 
want to avoid taking witness statements; let the investigators 
do that.
    What I was doing with this email was just alerting people 
that we have been told there's an investigation, we've been 
admonished not to generate material that would complicate it, 
let's slow down and make sure that what we're doing is not 
inconsistent with the guidance we've gotten.
    Senator Inhofe. Considering that this individual is the 
Vice Chairman of HPSCI over there, and made the request, do you 
see any reason that you couldn't, even in a classified form, 
respond to his questions, either now or if something should 
happen in the future?
    Mr. Preston. I should think that we could respond in a 
classified form. These were public talking points, and my email 
was only directed to this particular item that was being 
prepared.
    Senator Inhofe. If he were to re-ask you that question in a 
classified form, could you respond to it?
    Mr. Preston. If that request came from the Ranking to the 
Agency, I expect they would respond.
    Senator Inhofe. Okay. That's fine.
    Getting back, Mr. McGinn, there was a statement that was 
attributed to Secretary Hagel, it appeared in Greenwire, I 
believe it was, one of the publications--he said, ``Secretary 
Hagel recently asked why, in the face of the devastating cuts 
in civilian workers, carrier deployments, military training, 
and equipment maintenance, the Defense Department would still 
contribute $170 million to a massive Federal giveaway to 
private biofuels companies to aid the construction of a 
commercial biofuel refinery.'' Then it said, ``He was told by 
the White House to stand down.''
    You can do this for the record, if you'd like, unless you'd 
like to address it now--the same $170 million could have been 
used by the Air Force to prevent the 16 squadrons from flying 
or could have saved some 60,000 civilians from being 
furloughed. I have a list of things that could be done with 
that $170 million.
    I guess what I want to get from you--I know what's happened 
in the past. You and I have disagreed on the whole green fleet 
and all of that.
    Admiral McGinn. Yes, sir.
    Senator Inhofe. But, that's an honest disagreement, and I 
understand that. But, we also have a Department of Energy. I 
remember when that was set up. It was set up just for such 
purposes as experimenting to see what we could have.
    Now, when people use the excuse that we are not energy 
sufficient, I want to hasten to say, we could be, and we will 
be, when we can change our policies in this country. But, 
nonetheless, in the meantime, don't you think that those 
dollars, that are so scarce right now of going into defending 
America, should be used just for that purpose, for defense, and 
let the Department of Energy carry on their function? What's 
your thought about that?
    Admiral McGinn. Based on my prior experience in uniform, 
especially as Deputy Chief of Naval Operations for Warfare 
Requirements, I'm somewhat familiar with the process of having 
to make choices to recognize that there are not only direct 
costs for investments, but there are opportunity costs. If you 
spend it on one thing, you're not going to be not going to be 
able to spend it on other things. I look forward, if confirmed, 
to really looking into all of our programs, including our 
energy programs, to make sure that, not only the direct costs, 
but the opportunity costs are carefully considered in making 
those investments.
    Senator Inhofe. In this case--and you can recall, because 
we've actually used this, talking about the $26 a gallon that 
could have been done for less. In specific instances like that, 
I would request, if you are confirmed, that, when you see 
things like that, that might be coming up, that we, on this 
committee, could be a part of that decision, and it not just be 
done in a vacuum. That would be a request that I would have.
    Admiral McGinn. Yes, sir. Across the board, all of my 
portfolio, if confirmed, I look forward to working with the 
committee, and, indeed, the entire Congress.
    Senator Inhofe. All right. Thank you very much for that 
answer.
    Admiral McGinn. Yes, sir.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    I have an additional question or two.
    Admiral, before the committee authorizes appropriations for 
a military construction project, that project has typically 
been reviewed by the relevant Service and the Service, when 
they designate that project as a priority, they then submit it 
to Congress as part of the budget. Now, the committee's recent 
review of overseas basing found that it is not the case for 
projects built with in-kind payments from foreign governments. 
This inquiry of our committee found that the in-kind payments 
from Germany, South Korea, and Japan have been used to fund 
questionable military construction projects. Are you familiar 
with our investigation?
    Admiral McGinn. No, sir. I am familiar that there is an 
investigation, but not all of the details.
    Chairman Levin. All right. If you would, after you're 
confirmed, promptly read the report and make sure that in-kind 
payments are utilized only for identified U.S. priorities to 
offset costs that the Department of the Navy would otherwise 
pay with appropriated funds, we would appreciate it.
    Admiral McGinn. Yes, sir. I would just like to state that, 
no matter what the source of precious resources, we have to 
make sure that they're spent wisely. It doesn't matter whether 
it comes from the support from some of our allies or from our 
own appropriated funds. We have an obligation to spend them to 
the best effect possible.
    Chairman Levin. Or whether they're in-kind payments.
    Admiral McGinn. Yes, sir.
    Chairman Levin. Okay.
    Now, the committee, or at least many members, are very 
concerned about the plans for the relocation of marines from 
Okinawa to other locations in the Pacific; specifically, not 
the idea of it, but more the affordability and the 
sustainability and the operational viability of those plans. In 
response to prehearing policy questions, you indicated that 
Guam construction issues were among the most significant 
challenges facing the next Assistant Secretary of the Navy for 
Energy, Installations, and Environment.
    Now, the Marine Corps estimates its realignment plan would 
cost $12.1 billion, but the Government Accountability Office 
(GAO) recently reported that this estimate is not reliable; 
it's based on limited data and will not be reliable until 
environmental analyses and host-nation negotiations have 
concluded.
    Admiral, are you familiar with the GAO report?
    Admiral McGinn. Not the details, but that there is a 
report, Mr. Chairman.
    Chairman Levin. Will you, after you're confirmed, which we 
hope will be prompt--will you give us a report about your level 
of confidence in the reliability of that $12.1 billion cost 
estimate put forward by the Marine Corps?
    Admiral McGinn. Yes, I will.
    Chairman Levin. Also, will you let us know, in your report, 
whether or not we should be funding military construction 
projects to support the movement of marines to Guam before we 
have commitments from host nations, in terms of their 
participation in those costs?
    Admiral McGinn. Yes, sir.
    Chairman Levin. Will you let us know that at the same time?
    Admiral McGinn. I will.
    Senator Inhofe. Just really briefly.
    Chairman Levin. Sure.
    Senator Inhofe. Let me correct the record. I had used the 
wrong name. The Sergeant Major at Fort Sill that was really 
somewhat of an expert in this area--was named Carter. I used 
the wrong name. I wanted to make sure I got that correction.
    One last thing. Mr. Preston, in statements that I read that 
were statements you had made about military commissions, have 
you been to GTMO and looked at the expeditionary legal complex 
down there?
    Mr. Preston. I've been down there once. Yes, sir.
    Senator Inhofe. Did you go through this complex that they 
have down there?
    Mr. Preston. I went to some of the facilities down there.
    Senator Inhofe. They had one major one. As I recall, it was 
about a $15-million thing that they put together down there. 
You're more familiar with it than I am--but I am not a lawyer, 
as I've pointed out--with the difference between the tribunals 
and the normal trials that we would have here. In terms of 
security of information and all of that, would you just 
reexamine that particular facility and then maybe visit with me 
about any justification for not using it? I don't know of one 
anywhere that is just like that, that is designed for that 
purpose. Would you do that, and just look at that and visit 
with me about it? I need to be educated a little bit more.
    Mr. Preston. Sir, if I'm confirmed, I would be happy to do 
that.
    Senator Inhofe. All right.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    We have indicated that there are going to be questions for 
the record, which we're going to need to get promptly answered, 
particularly to you, Mr. Preston. I don't know if there are 
other nominees that we had questions for, or might have 
questions for, but I know there are some for you, Mr. Preston. 
Some of those are going to be in a classified form and may 
require classified answers, particularly relative to that 
response from the CIA to the Intelligence Committee about the 
intelligence investigation that I referred to--the Intelligence 
Committee investigation.
    We will try to get those questions to you, if we can, as 
early as tomorrow. If so, you would then be able, both, where 
appropriate, in a unclassified manner, but, where necessary, in 
a classified manner, please get us your answers within a matter 
of days, because that'll speed up the consideration of your 
nomination. That goes for any other questions for any of the 
other nominees, as well.
    If there are no additional questions, we will stand 
adjourned, again with thanks to you and your families.
    [Whereupon, at 11:12 a.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Stephen W. Preston by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
improved cooperation between the services and the combatant commanders 
in the strategic planning process, in the development of requirements, 
in joint training and education, and in the execution of military 
operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions based on your experience in the Department of Defense?
    Answer. I believe that Goldwater-Nichols and other reforms have 
significantly improved the Department of Defense. At this time, I am 
not aware of any need to amend Goldwater-Nichols. If am confirmed and 
become aware of a need, I will recommend any changes I believe to be 
warranted.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. See answer above.
                             relationships
    Question. What is your understanding of both the formal and 
informal relationship between the General Counsel of the Department of 
Defense and the following offices?
    The Secretary of Defense.
    Answer. As the chief legal officer of the Department of Defense, 
the General Counsel is the principal legal advisor to the Secretary of 
Defense and, as such, advises on the full range of issues confronting 
the Department of Defense. If confirmed, I look forward to working very 
closely with the Secretary and his immediate staff on these issues.
    Question. The Under Secretaries of Defense.
    Answer. The General Counsel and attorneys reporting to the General 
Counsel are responsible for providing sound and timely legal advice to 
the five Under Secretaries of Defense and their respective offices.
    Question. The Assistant Secretaries of Defense.
    Answer. As with the Under Secretaries of Defense, the General 
Counsel and attorneys in the Office of General Counsel are responsible 
for providing sound and timely legal advice to the Assistant 
Secretaries of Defense and their staffs.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman has his own lawyer, the Legal Counsel to the 
Chairman of the Joint Chiefs of Staff, who is a judge advocate in the 
grade of brigadier general or rear admiral (lower half). The Chairman 
relies primarily on the Legal Counsel for legal advice. If confirmed, I 
expect to meet regularly and work closely with the Chairman's Legal 
Counsel on a wide variety of matters affecting the Department of 
Defense and would be available to the Chairman as appropriate.
    Question. The geographic combatant commanders.
    Answer. The geographic combatant commanders have their own Staff 
Judge Advocates, on whom they rely for legal advice. If confirmed, I 
expect to work with the geographic combatant commanders and their Staff 
Judge Advocates through the Chairman of the Joint Chiefs of Staff and 
the Joint Staff, including the Legal Counsel to the Chairman as 
appropriate.
    Question. The Commander of the Joint Special Operations Command.
    Answer. The Commander of the Joint Special Operations Command 
(JSOC) has his own Staff Judge Advocate who provides legal advice to 
him, in conjunction with the Staff Judge Advocate of the U.S. Special 
Operations Command (SOCOM), as JSOC is a part of SOCOM. If confirmed, I 
expect to work with the Commander and the Staff Judge Advocate of JSOC, 
as well as the Commander and the Staff Judge Advocate of SOCOM, through 
the Chairman of the Joint Chiefs of Staff and the Joint Staff, 
including the Legal Counsel to the Chairman as appropriate.
    Question. The Judge Advocates General (TJAG).
    Answer. The Judge Advocates General (TJAG) are responsible for 
providing legal advice, along with the General Counsels of the Military 
Departments, to the senior leadership of their respective Military 
Departments. Title 10 expressly directs that ``[n]o officer or employee 
of the Department of Defense interfere with the ability of the Judge 
Advocate[s] General to give independent legal advice to'' the 
leadership of their respective Military Departments. See title 10 
U.S.C. Sec. Sec. 3037, 5148, 8037. If confirmed, I expect to meet 
regularly and work closely with all of the Judge Advocates General, as 
well as the Staff Judge Advocate to the Commandant of the Marine Corps, 
and I aim to have the same productive and collegial relationship with 
the ``TJAGs'' and the JAG community as I enjoyed during my prior 
service at the Department of Defense.
    Question. The Legal Advisor to the Chairman of the Joint Chiefs of 
Staff.
    Answer. As noted above, the Legal Counsel to the Chairman is 
responsible for providing legal advice to the Chairman of the Joint 
Chiefs of Staff. If confirmed, I expect to have a productive and 
collegial relationship with the Chairman's Legal Counsel, characterized 
by frequent meetings and close collaboration, particularly with respect 
to military operations.
    Question. The Staff Judge Advocates to the Commanders of Combatant 
Commands.
    Answer. I understand that the relationship of the General Counsel 
to the Staff Judge Advocates of the Combatant Commands is primarily 
through the Chairman's Legal Counsel.
    Question. The General Counsels of the Military Departments.
    Answer. From my prior service as General Counsel of the Department 
of the Navy and as Principal Deputy General Counsel of the Department 
of Defense, I appreciate the close working relationships among the 
Military Department General Counsels and the DOD General Counsel. The 
General Counsels of the Army, Navy and Air Force serve as the chief 
legal officers of their respective departments and report to the 
Secretaries of their respective departments. At the same time, the DOD 
General Counsel is the chief legal officer of the entire Department of 
Defense. If confirmed, I expect to meet regularly and work closely with 
the Military Department General Counsels.
    Question. The Counsels for the Defense Agencies.
    Answer. The DOD General Counsel is also the Director of the Defense 
Legal Services Agency (DLSA), and the General Counsels of the defense 
agencies and DOD field activities are all part of DLSA. The General 
Counsels of the defense agencies and DOD field activities report the 
DOD General Counsel in his or her capacity as DLSA Director.
    Question. The Counsel to the Inspector General.
    Answer. Title 5 of the U.S.C. provides for a General Counsel to the 
Inspector General of the Department of Defense, who reports directly to 
and performs duties as assigned by the Inspector General. If confirmed, 
I expect to work closely with the General Counsel to the Inspector 
General.
    Question. The Joint Service Committee on Military Justice.
    Answer. I understand that the DOD General Counsel designates a non-
voting representative to the Joint Service Committee on Military 
Justice, provides taskings to the committee, and receives advice from 
it.
    Question. The Comptroller General.
    Answer. It is my understanding that the General Counsel, on behalf 
of the Secretary of Defense, may request advisory opinions from the 
Comptroller General on the obligation and disbursement of public funds. 
If confirmed, I expect to have a productive relationship with the 
Comptroller General and his or her staff with respect to matters 
involving fiscal law within the responsibility of the Comptroller 
General.
    Question. The U.S. Court of Appeals for the Armed Forces.
    Answer. By statute, the U.S. Court of Appeals for the Armed Forces 
is located, for administrative purposes only, within the Department of 
Defense. See title 10 U.S.C. Sec. 941. My understanding is that the DOD 
General Counsel has historically served as an informal DOD liaison with 
the Court. If confirmed, I expect to support the work of the Court 
while respecting its independence.
    Question. The Code Committee established under Article 146 of the 
Uniform Code of Military Justice.
    Answer. I understand that the Code Committee consists of the Judges 
of the United States Court of Appeals for the Armed Forces, the Judge 
Advocates General of the Military Departments, the Judge Advocate 
General and Chief Counsel of the Coast Guard, the Staff Judge Advocate 
to the Commandant of the Marine Corps, and two recognized authorities 
on military justice appointed by the Secretary of Defense from public 
life. The General Counsel has no formal relationship to the Code 
Committee. However, the General Counsel may provide informal support to 
the Code Committee when requested and regularly communicates with the 
Code Committee with respect to the activities and recommendations of 
the Joint Service Committee on Military Justice.
    Question. The Attorney General.
    Answer. The Attorney General is the chief legal officer and law 
enforcement authority of the United States. As General Counsel of the 
Central Intelligence Agency, I have worked closely with the Attorney 
General and his staff on a number of matters. If confirmed, I look 
forward to continuing the productive relationship that I have enjoyed 
with the leadership of the Department of Justice.
    Question. The Office of Legal Counsel at the Department of Justice.
    Answer. The Assistant Attorney General for the Office of Legal 
Counsel issues legal opinions that are binding on the executive branch, 
including the Department of Defense, and regularly provides advice to 
attorneys throughout the Executive branch. As a result, the DOD General 
Counsel must work closely with the Office of Legal Counsel to ensure 
that the best possible legal advice is provided to officials of the 
Department of Defense. As General Counsel of the Central Intelligence 
Agency, I have had a very close and productive relationship with the 
Assistant Attorney General and the Office of Legal Counsel, and, if 
confirmed, I expect that relationship to continue.
    Question. The Office of Legal Adviser at the Department of State.
    Answer. Many national security matters require the Departments of 
State and Defense to work closely together and coordinate efforts. As a 
result, it is necessary for the DOD General Counsel and the Legal 
Adviser of the Department of State, and their respective staffs, to 
consult with each other on legal issues of mutual interest on a regular 
basis. As General Counsel of the Central Intelligence Agency, my 
relationship with the Legal Adviser and the Legal Adviser's office has 
been a close and productive one, and, if confirmed, I look forward to 
continuing that relationship.
    Question. The General Counsel of the Central Intelligence Agency.
    Answer. My service as General Counsel of the Central Intelligence 
Agency provides me with special insight into the appropriate 
relationship between the incumbent of that position and the DOD General 
Counsel. The Central Intelligence Agency and the Department of Defense 
share many common interests in significant national security matters, 
intelligence activities and military operations, and it is therefore 
critically important for the General Counsel of the Central 
Intelligence Agency and the DOD General Counsel to work well together 
and communicate regularly. If confirmed, I am confident that I will 
have a very close and productive relationship with my successor at the 
Agency.
    Question. The Interagency Legal Advisors Working Group.
    Answer. Attorneys from the national security staff and departments 
and agencies with national security responsibilities meet as needed or 
directed to discuss legal issues of concern to multiple departments and 
agencies or about which there may be differences of opinion. As General 
Counsel of the Central Intelligence Agency, I have participated in 
these discussions and will continue to do so as DOD General Counsel, if 
confirmed.
                             qualifications
    Question. Section 140 of title 10, U.S.C., provides that the 
General Counsel is the chief legal officer of the Department of Defense 
and that the General Counsel shall perform such functions as the 
Secretary of Defense may prescribe.
    Assuming you are confirmed, what duties do you expect that the 
Secretary of Defense will prescribe for you?
    Answer. If confirmed, I anticipate that the Secretary of Defense 
will rely on me for legal advice on the full range of issues that he 
and the Department must address and will expect me, as a member of his 
senior leadership team, to share with him the benefit of my experience 
generally.
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have spent most of my career, and the past 20 years 
straight, working at the juncture of law and national security, both in 
private practice and in government service.
    I am currently General Counsel of the Central Intelligence Agency, 
appointed by the President with the advice and consent of the Senate a 
little more than 4 years ago. Before that, as a partner at WilmerHale 
in Washington, I was co-chair of the firm's Defense and National 
Security Practice Group, as well as a member of the firm's Regulatory 
and Litigation Departments. During the Clinton administration, I served 
as Deputy General Counsel for Legal Counsel, Principal Deputy General 
Counsel and, for an extended period, Acting General Counsel of the 
Department of Defense. I then joined the Department of Justice as the 
Deputy Assistant Attorney General responsible for civil appellate 
matters. Returning to the Department of Defense, I served as General 
Counsel of the Department of the Navy, a Presidential appointment 
requiring Senate confirmation.
    These experiences have given me a deep understanding of legal and 
policy issues relating to national defense. I have also gained valuable 
insight into the critical role of the General Counsel in advising the 
Secretary of Defense and representing the Department. For the past 4 
years, I have dealt extensively with the terrorist threat and other 
security challenges facing the United States. Perhaps most important, 
my experience over a professional lifetime has instilled in me a 
profound appreciation for the men and women who devote their lives to 
defending our country.
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the Department of Defense?
    Answer. The client of the General Counsel of the Department of 
Defense is the Department of Defense and, ultimately, the United States 
of America.
                         duties and challenges
    Question. In your view, what are the major challenges confronting 
the next General Counsel of the Department of Defense?
    Answer. The major challenges I will face, if confirmed, relate 
directly to the major challenges confronting the Department as a whole. 
Among them are the conflict with al Qaeda and transition in 
Afghanistan, as well as other national security challenges, and 
continuing efforts to ensure full compliance with all applicable law in 
addressing those challenges. Other priority areas with substantial 
legal aspects include military detention operations and the military 
commissions. There are also pressures caused by diminishing budgets and 
the effects of sequestration, and resulting challenges in both the 
acquisition and personnel areas. In the acquisition area, for example, 
bid protests and other contract litigation may be expected to increase 
as more companies compete for fewer contracts or decide to file 
contract claims. Furloughs and anticipated reductions in personnel are 
also likely to raise significant legal issues.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. The Department is well served by a cadre of experienced 
attorneys who are experts in relevant areas of law, both in the Office 
of General Counsel and in the larger DOD legal community. If confirmed, 
my hope is to provide leadership and the support those attorneys need 
to provide the best possible legal advice to their component clients. 
For my part, I will do my utmost to assist the Secretary in meeting the 
various challenges confronting the Department.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the General Counsel of the 
Department of Defense?
    Answer. I expect that I will have a better sense of any needs 
relating to the performance of the DOD General Counsel's functions 
after spending some time in the position, if confirmed. I understand 
that current budget pressures, aging of the workforce, and difficulty 
in replacing attorneys who retire without others having similar 
expertise may pose significant problems.
    Question. What management actions and timelines would you establish 
to address these problems?
    Answer. If confirmed, I intend to treat my colleagues with the 
respect they so richly deserve, and to focus on resources, succession 
planning and recruitment with reference to the workforce of my office.
    Question. What do you see as the greatest legal problems facing the 
Department in the coming year?
    Answer. In addition to the challenges discussed above, one area 
that has received a great deal of attention recently, which I expect 
will draw continued attention in the coming year, would be intelligence 
activities conducted by the Department of Defense that potentially 
implicate privacy and civil liberties. DOD attorneys will, I expect, 
continue to assist their component clients in finding lawful paths to 
reach operational objectives, facilitating the national security 
mission while ensuring full compliance with all applicable law and, 
specifically, strict adherence to the standards and procedures 
protecting privacy and civil liberties. I also see sexual assault in 
the military as an urgent problem with substantial legal aspects that 
will require sustained attention in the coming year, as discussed in 
response to specific questions below.
    Question. Does the Office of the General Counsel have the resources 
to deal with these problems and do its everyday work?
    Answer. I expect that I will have a better sense of any needs 
relating to Office of General Counsel resources after spending some 
time in the position, if confirmed. I understand that furloughs and 
anticipated reductions in personnel may pose significant challenges in 
this regard.
                             legal opinions
    Question. Are legal opinions of the Office of the General Counsel 
binding on all lawyers within the Department of Defense?
    Answer. The DOD General Counsel is the chief legal officer of the 
Department of Defense. Accordingly, the legal opinions of the DOD 
Office of General Counsel are controlling throughout the Department of 
Defense. There is an exception for the lawyers in the Office of the 
Inspector General, as the General Counsel to the Inspector General is 
expressly exempted from the scope of 10 U.S.C. Sec. 140 by virtue of 
section 907 of the NDAA for Fiscal Year 2009 A (title 5 U.S.C. App. 
Inspector General Act of 1978 Sec. 8(h)). I note also that title 10 
prohibits any officer or employee of DOD from interfering with the 
ability of certain senior military lawyers to give independent legal 
advice to their respective principals.
    Question. How will you ensure that such legal opinions are 
available to lawyers in the various components of the Department of 
Defense?
    Answer. Written opinions of the DOD Office of General Counsel are 
disseminated throughout the Department in the ordinary course of 
business, using normal departmental distribution processes. If 
confirmed, I expect to continue this practice.
    Question. If confirmed, are there specific categories of General 
Counsel legal opinions that you expect to reconsider and possibly 
revise? If so, what categories?
    Answer. I am not aware of any specific categories of General 
Counsel legal opinions that are in need of reconsideration or revision. 
However, if confirmed and such a need arises, I would review those 
opinions in consultation with the appropriate attorneys and subject 
matter experts within the Department.
    Question. What role do you expect to play, if confirmed, in the 
development and consideration (or reconsideration) of legal opinions by 
the Office of Legal Counsel (OLC) of the Department of Justice that 
directly affect the Department of Defense?
    Answer. While the Department of Justice is ultimately responsible 
for the legal opinions of the Office of Legal Counsel, if confirmed, I 
expect to work closely with the Office of Legal Counsel in the 
development and consideration of legal opinions that directly affect 
the Department of Defense. (I am not aware of any such opinions 
currently in effect that are in need of reconsideration.)
    Question. What actions would you take in response to an opinion 
issued by OLC with which you disagreed as a matter of proper 
interpretation of the law?
    Answer. I would not hesitate to inform the Office of Legal Counsel 
if I disagreed with one of its legal opinions. I would raise any 
unresolved concerns directly with the Assistant Attorney General. If 
necessary and as appropriate, I would be prepared to take the matter 
all the way up to the Attorney General. I recognize, however, that the 
Attorney General is the chief legal officer of the United States and 
that his or her legal opinions are controlling throughout the Executive 
branch.
                        independent legal advice
    Question. In response to attempts within the Department of Defense 
to subordinate legal functions and authorities of the Judge Advocates 
General to the General Counsels of the Department of Defense and the 
Military Services, Congress enacted legislation prohibiting any officer 
or employee of the Department of Defense from interfering with the 
ability of the Judge Advocates General of the Military Services and the 
legal advisor to the Chairman of the Joint Chiefs of Staff to provide 
independent legal advice to the Chairman, Service Secretaries, and 
Service Chiefs. Congress also required a study and review by outside 
experts of the relationships between the legal elements of each of the 
Military Departments.
    What is your view of the need for the Judge Advocates General of 
the services, the Staff Judge Advocate to the Commandant of the Marine 
Corps, and the legal advisor to the Chairman of the Joint Chiefs of 
Staff to provide independent legal advice to Service Secretaries, 
Chairman of the Joint Chiefs, Chiefs of Staff of the Army and Air 
Force, and the Chief of Naval Operations?
    Answer. I believe that the ability of these senior military lawyers 
to provide independent legal advice to their principals is critically 
important. During my prior service as General Counsel of the Department 
of the Navy and as Principal Deputy General Counsel of the Department 
of Defense, long before any legislation in this regard, it was my firm 
expectation that the senior military lawyers with whom I worked would 
provide independent legal advice to their principals, entirely without 
hindrance. As a member of the 2005 Independent Review Panel to Study 
the Relationships between military department General Counsels and 
Judge Advocates General, I had an opportunity to reflect on these 
issues and to reaffirm the independence of the ``TJAGs'' in providing 
legal advice to the leadership of their respective military 
departments. In my experience, the best legal advice is often the 
product of consultation and, where possible, consensus. Accordingly, in 
my view, the advice given by senior military lawyers should be informed 
by consultation with other departmental lawyers as appropriate. If 
confirmed, I expect to benefit from, and will insist on, the 
independent views of the senior military lawyers with whom I will work.
    Question. What is your view of the responsibility of judge 
advocates within the services and joint commands to provide independent 
legal advice to military commanders?
    Answer. Judge advocates within the Services and joint commands must 
provide military commanders timely legal advice that is independent of 
improper external influence. While exercising their best judgment, the 
advice given may be informed by consultation with other departmental 
lawyers, as circumstances permit, such as more senior judge advocates 
in the chain of command, and it should be governed by any relevant 
legal guidance from authoritative sources such as the Department of 
Justice or within the Department of Defense.
    Question. If confirmed, would you propose any changes to the 
current relationships between the uniformed judge advocates and General 
Counsels?
    Answer. As I understand the current relationships, I would not 
propose any changes, if confirmed.
                            detainee issues
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the U.S. Government, regardless of 
nationality or physical location shall be subject to cruel, inhuman, or 
degrading treatment or punishment.
    In your view, is the prohibition in the best interest of the United 
States? Why or why not?
    Answer. I believe this prohibition to be in the best interest of 
the United States, consistent with the national security and with 
fundamental American values.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. The Detainee Treatment Act of 2005 and the Military 
Commissions Act of 2009 define ``cruel, inhuman, or degrading treatment 
or punishment'' as the cruel, unusual, and inhumane treatment or 
punishment prohibited by the Fifth, Eighth, and Fourteenth Amendments 
to the U.S. Constitution. I think this is an adequate and appropriate 
definition.
    Question. What role do you believe the General Counsel of the 
Department of Defense should play in the interpretation of this 
standard?
    Answer. The General Counsel should play a primary role in advising 
the Secretary of Defense and those who fall under his command on the 
standards governing the treatment of persons detained by the U.S. 
military, including regarding any interpretation, if necessary, of the 
standard quoted above.
    Question. What role do you believe the Judge Advocates General of 
the military services should play in the interpretation of this 
standard?
    Answer. The Judge Advocates General and other military lawyers 
should play a prominent role in the interpretation of standards related 
to the treatment of detainees. I believe The Judge Advocates General 
and the lawyers they lead bring experience and an important perspective 
to these and many other matters, and they play a vital role in 
supporting the operating forces worldwide. Judge advocates must be 
depended on to provide timely day-to-day legal advice to military 
commanders in the field. If confirmed, and if called on to offer any 
guidance on this standard, I would expect to consult The Judge 
Advocates General and the Chairman's Legal Counsel.
    Question. If confirmed, will you take steps to ensure that all 
relevant Department of Defense directives, regulations, policies, 
practices, and procedures fully comply with the requirements of section 
1403 and with Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. I believe the standard as defined in U.S. domestic law is 
appropriate for purposes of protection from abusive treatment when 
applied to detention at home and abroad.
    Question. Do you believe that the United States has the legal 
authority to continue holding alleged members and supporters of al 
Qaeda and the Taliban as enemy combatants?
    Answer. Congress and the Federal courts have recognized the 
Executive branch's authority to detain individuals who were part of, or 
substantially supported, al Qaeda or Taliban forces, or associated 
forces that are engaged in hostilities against the United States or its 
coalition partners, including any person who has committed a 
belligerent act, or has directly supported hostilities, in aid of such 
enemy forces.
    Question. Do you believe that the Federal courts have the 
procedures and capabilities needed to fairly and appropriately review 
the detention of enemy combatants, pursuant to habeas corpus petitions?
    Answer. The Federal courts have established clear procedures for a 
habeas petitioner to obtain extensive discovery from the government and 
for the petitioner to participate in his case (during unclassified 
proceedings). In the habeas litigation, the courts have provided 
detainees with a meaningful opportunity to contest the lawfulness of 
their detention, while protecting core national security interests, 
such as the protection of classified information and the continued 
detention of enemy belligerents who pose a threat to the United States.
    Question. What role would you expect to play, if confirmed, under 
the Periodic Review Board procedures for reviewing the status of 
Guantanamo detainees and determining whether the United States should 
continue to hold such detainees?
    Answer. If confirmed, I would expect to provide legal advice to the 
Secretary of Defense on the status of the Guantanamo detainees and 
determinations whether such detainees should continue to be held. In 
addition, the General Counsel appoints the legal advisor to the 
Periodic Review Board and is in the legal advisor's supervisory chain.
    Question. The Military Commissions Act of 2009 revised the 2006 
procedures for military commission trials of ``alien unlawful enemy 
combatants''.
    In your view, does the Military Commissions Act of 2009 provide 
appropriate legal standards and processes for the trial of alien 
unlawful enemy combatants?
    Answer. The Military Commissions Act of 2009 provides appropriate 
standards and processes for the trial of alien unprivileged enemy 
belligerents.
    Question. What role would you expect to play, if confirmed, in 
determining whether Guantanamo detainees should be tried for war 
crimes, and if so, in what forum?
    Answer. The Convening Authority has the responsibility for 
determining whether to refer charges to a military commission. The 
General Counsel does not have a role in the referral of charges. If 
confirmed, I would expect to provide legal advice, as necessary, to the 
Secretary of Defense on these matters.
    Question. What is your understanding of the relationship between 
the General Counsel of the Department of Defense and the legal advisor 
to the convening authority, the chief prosecutor, and the chief defense 
counsel for the military commissions?
    Answer. The Legal Advisor to the Convening Authority and Chief 
Prosecutor are supervised by the Deputy General Counsel (Legal 
Counsel). The Chief Defense Counsel is supervised by the Deputy General 
Counsel (Personnel & Health Policy). Both the Deputy General Counsel 
(Legal Counsel) and the Deputy General Counsel (Personnel & Health 
Policy) report to the General Counsel.
                   coercive interrogation techniques
    Question. As discussed in a 2008 report of the Senate Armed 
Services Committee, Survival, Evasion, Resistance, and Escape (SERE) 
techniques used to train members of our military were never intended to 
be used by U.S. interrogators. Rather, the techniques--which are based 
on Communist Chinese interrogation techniques used during the Korean 
War to elicit confessions--were developed to expose U.S. soldiers to 
the abusive treatment they might be subjected to if captured by our 
enemies.
    Do you believe interrogation techniques derived from SERE 
techniques are an effective way to acquire useful intelligence?
    Answer. While I have no expertise in either SERE training or 
methods of interrogation, in my view, the fact that certain techniques 
have been used to train servicemembers in withstanding abusive 
treatment if captured is not indicative of the effectiveness of those 
techniques in obtaining information from detainees, nor does it show 
such techniques to be superior to conventional interrogation 
techniques.
    Under Executive Order 13491, issued January 22, 2009, departments 
and agencies of the U.S. Government are prohibited from using any 
interrogation technique that is not authorized by and listed in the 
Army Field Manual. My understanding is that none of the interrogation 
techniques contained in the Army Field Manual--FM 2-22.3, ``Human 
Intelligence Collector Operations,'' September 2006--was derived from 
SERE techniques.
    Question. In your opinion, is there any comparability between a 
friendly trainer exposing our troops to SERE techniques, including 
waterboarding, for minutes to show what they could face if captured and 
using these techniques on an enemy to in an effort to extract 
intelligence?
    Answer. While I have no expertise in either SERE training or 
methods of interrogation, in my view, the two activities are 
significantly different for purposes of meaningful comparison. They are 
conducted for very different purposes, and they are carried out in very 
different contexts/environments. Notably, the person subjected to such 
techniques during SERE training is aware that he or she is 
participating in a training exercise and not in fact undergoing 
interrogation by hostile forces.
    Question. In your opinion, does waterboarding constitute torture?
    Answer. Under current law, waterboarding constitutes torture. As 
waterboarding was banned by Executive order in January 2009, I have had 
no occasion to independently examine the question with reference to any 
CIA activities during my tenure as General Counsel. However, I believe 
the law on this is now well settled: in addition to the President, 
Attorney General Holder has stated that waterboarding is torture. That 
is the law in my view, and I fully support the President's decision to 
ban waterboarding and the other ``enhanced interrogation techniques''.
    At the time the waterboard was used in connection with the former 
detention and interrogation program, Agency personnel relied on then-
authoritative legal opinions issued by the Department of Justice. Of 
course, those opinions have since been disavowed and withdrawn by the 
Department of Justice. However, the Attorney General has repeatedly 
made clear that anyone who acted in good faith and within the scope of 
the legal guidance given by the Justice Department would not be subject 
to prosecution.
    Question. Is waterboarding torture within the meaning of the Geneva 
Conventions?
    Answer. See answer above. For purposes of defining torture under 
the Geneva Conventions, the U.S. military uses the definition of 
torture under U.S. domestic law. See U.S. Army Field Manual 2-22.3. So 
if an activity is torture under U.S. law, then it is torture for 
purposes of the Geneva Conventions. Inasmuch as waterboarding is 
torture under U.S. law, as noted above, waterboarding is torture within 
the meaning of the Geneva Conventions.
                        military commissions act
    Question. In your view, do military commissions constituted 
pursuant to the Military Commissions Act of 2009 provide an effective 
forum for trying violations of the law of armed conflict?
    Answer. Military commissions are an appropriate forum for trying 
offenses against the law of war and other offenses traditionally 
triable by military commission. The applicability of certain offenses 
to conduct occurring prior to 2006 is currently the subject of pending 
litigation in Federal court.
    Question. What do you see as the advantages and disadvantages of 
military commissions as a forum for trying detainees for terrorism-
related offenses?
    Answer. The reforms of the Military Commissions Act of 2009 ensure 
that military commissions provide appropriate processes for the trial 
of alien unprivileged enemy belligerents. In addition, the Department 
of Defense has made many improvements to the transparency of the 
process, including closed-circuit transmission of all open proceedings 
to the general public. Nonetheless, legal challenges remain, 
particularly in light of the number of unsettled legal issues.
    Question. Do you see the need for any changes to the Military 
Commissions Act of 2009?
    Answer. I am not aware of any need for changes to the 2009 Military 
Commissions Act.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the U.S. military to use force, including deadly 
force, against U.S. citizens?
    Answer. Citizenship does not confer immunity on one who takes up 
arms against our country. However, it is critically important to 
respect the Constitutional rights of American citizens, even those who 
may be plotting against the United States. The requirements of Due 
Process and the circumstances in which the U.S. Government could 
lawfully target an enemy belligerent/terrorist operator known to be a 
U.S. person were outlined in the speech by the Attorney General in 
March of last year and are discussed in some detail in the Department 
of Justice white paper that has been released. In addition, the policy 
standards and procedures announced in May of this year require that if 
the United States considers an operation against a terrorist identified 
as a U.S. person, the Department of Justice will conduct an additional 
legal analysis to ensure that such action may be conducted against the 
individual consistent with the Constitution and laws of the United 
States.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the U.S. military to use force, including deadly 
force, inside the United States?
    Answer. It is a mission of the U.S. military to defend the United 
States from attack, and the performance of this mission could involve 
the use of military force to repel an armed attack launched against our 
homeland. In the conflict with al Qaeda and its militant allies, the 
U.S. military does not employ deadly force in the United States. As a 
policy matter, moreover, the use of military force is unnecessary 
because well-established law enforcement authorities in this country 
provide the best means for incapacitating a terrorist threat. The 
United States has a long history of using the criminal justice system 
to incapacitate individuals located in our country who pose a threat to 
the United States and its interests.
                           international law
    Question. In a speech at Columbia Law School and a similar address 
at Harvard Law School, you discuss a ``four-box matrix'' which has been 
used to assist in the legal review of proposed actions by the Central 
Intelligence Agency. The second box in this matrix is designed to 
evaluate the ``Authority to Act with reference to International Law 
Principles.''
    If a proposed action by the Department of Defense is fully in 
compliance with U.S. law but there is a question of whether the 
proposed action is permitted under international law, customary 
international law or international law principles, does this ambiguity 
effect, and if so to what extent, or negate the ability of the 
Department to carry out the proposed action?
    Answer. As a threshold matter, all U.S. military operations must be 
authorized under U.S. domestic law. This authority could be conferred 
by statute or, in the absence of congressional authorization, under 
certain circumstances, the President may rely on his constitutional 
authority as Commander in Chief and Chief Executive, as well as his 
authority to conduct foreign relations, to authorize the use of 
military force. There are significant constitutional and statutory 
limitations on the scope and duration of military operations that the 
President may authorize.
    When the United States uses military force in a foreign country, it 
complies with all applicable international law.
    If confirmed, I would work closely with my colleagues, including 
the Chairman's Legal Counsel and interagency lawyers, to ensure that 
U.S. military operations abroad comply with both U.S. domestic and 
applicable international law.
    Question. In an address at Northwestern Law School in 2012, 
Attorney General Eric Holder stated that the administration has 
implemented special procedures to afford a level of due process review 
before lethal force is taken pursuant to the Authorization for the Use 
of Military Force of 2001 against a U.S. citizen.
    What is your understanding of the extent to which the 
administration intends to provide similar procedural due process 
protections to potential targets outside areas of active armed conflict 
who are not U.S. citizens?
    Answer. The policy standards and procedures announced in May of 
this year, which govern the United States' use of force in 
counterterrorism operations outside the United States and areas of 
active hostilities and are either already in place or will be 
transitioned into place, apply generally to all terrorist targets, 
regardless of whether they are American citizens. Particularly as 
relates to non-U.S. persons abroad, the standards and procedures were 
promulgated as a matter of policy rather than per requirements of due 
process.
    Question. During the Vietnam war some criticized the layers of 
bureaucracy which obstructed the timely authorization for an attack on 
legitimate military targets. In the current conflict, as in the Vietnam 
war, targets of opportunity can come and go in a moment's notice.
    Are you concerned that the procedures cited by the administration, 
as summarized in the Fact Sheet: U.S. Policy Standards and Procedures 
for the Use of Force in Counterterrorism Operations Outside the United 
States and Areas if Active Hostilities, for targeting terrorists 
outside active areas of armed conflict could similarly complicate and 
add to the length of time required to target an overseas, non-U.S. 
citizen al Qaeda member?
    Answer. I agree that agility and timeliness are important 
attributes in a decisionmaking process for approving military targets 
and authorizing military action against such targets. My understanding 
is that the policy standards and procedures announced in May of this 
year were developed in close consultation with the departments and 
agencies with national security responsibilities, including 
specifically civilian and military leaders responsible for military 
operations abroad, and with the objective of having a decisionmaking 
process that would be practically workable and yield timely decisions. 
In addition, the policy standards and procedures include a reservation 
by the President permitting action to be taken in extraordinary 
circumstances.
    Question. How do you assess the risk that the procedures could lead 
to targets of opportunity being missed or could unnecessarily obstruct 
our ability to fight the war?
    Answer. As noted, the policy standards and procedures were 
developed with the objective of having a decisionmaking process that 
would be practically workable and yield timely decisions. In addition, 
risk in this regard should be mitigated by the reservation by the 
President permitting a departure from otherwise applicable standards 
and procedures in extraordinary circumstances.
       authority for use of military force/law of armed conflict
    Question. On September 18, 2001, Congress passed the Authorization 
for the Use of Military Force (AUMF) (Public Law 107-40), which 
provides that ``the President is authorized to use all necessary and 
appropriate force against those nations, organizations, or persons he 
determines planned authorized, committed, or aided the terrorist 
attacks that occurred on September 11, 2001, or harbored such 
organizations or persons, in order to prevent any future acts of 
international terrorism against the United States by such nations, 
organizations or persons.'' This AUMF remains in effect and provides 
the legal authority for certain U.S. military actions.
    What is your understanding of the role of the General Counsel in 
interpreting the AUMF and in the application of the AUMF to military 
activities?
    Answer. I understand that the General Counsel, as chief legal 
officer of the Department of Defense, is responsible for providing 
advice on legal matters involving the Department of Defense and for 
overseeing legal services provided within the Department of Defense. 
The interpretation and application of the 2001 Authorization for Use of 
Military Force to military activities is a legal matter on which the 
General Counsel would provide advice to the Secretary of Defense, the 
Deputy Secretary of Defense, Office of the Secretary of Defense 
organizations and, as appropriate, other Department of Defense 
components.
    Question. What is your understanding of how the AUMF intersects 
with the international law of armed conflict?
    Answer. It is my understanding that the interpretation of the 2001 
Authorization for Use of Military Force, a domestic law of the United 
States, is informed by principles of international law, specifically, 
by the law of armed conflict.
    Question. In your view, does the Department of Defense have the 
legal authorities it needs to conduct military operations against 
entities responsible for September 11 and against those who plan 
further attacks against the United States?
    Answer. The 2001 Authorization for Use of Military Force provides 
broad legal authority for military operations against those responsible 
for the September 11 attacks and those harboring them, which authority 
has been applied to al Qaeda, the Taliban, and associated forces. In 
addition, the President could order military action to stop further 
attacks against the United States pursuant to his constitutional 
authority as Commander in Chief and Chief Executive, even if the 
terrorist threat was unrelated to al Qaeda, the Taliban, or an 
associated force. My understanding is that the existing authorities are 
believed to be adequate and appropriate for military operations to 
counter the current and immediately foreseeable terrorist threat.
    Question. In your view, do existing legal authorities provide the 
U.S. military the legal flexibility it needs to respond to new and 
emerging terrorism threats?
    Answer. Current Department of Defense strategy calls for increasing 
reliance on foreign partners as opposed to large-scale deployments of 
U.S. forces to address new and emerging terrorism threats. If 
confirmed, I look forward to examining whether new or revised legal 
authority for the U.S. military to support the efforts of foreign 
partners to respond to new and emerging threats is appropriate.
    Question. Without the AUMF, would the U.S. military have the legal 
authority to use force, including deadly force against members of al 
Qaeda and associated forces? If so, under what circumstances?
    Answer. The United States did, in fact, use military force against 
members of al Qaeda before the 2001 Authorization for Use of Military 
Force was enacted. If there were no 2001 Authorization for Use of 
Military Force, the President would have authority as Commander in 
Chief and Chief Executive to order military action against al Qaeda and 
associated forces if necessary to protect an important national 
interest, as with an imminent threat of violent attack. There are, 
however, significant constitutional and statutory limitations on the 
scope and duration of military operations that the President may order 
in the absence of congressional authorization.
    Question. What is the impact of the President's Policy Guidance on 
Counterterrorism on legal application of the AUMF with respect to 
counterterrorism operations?
    Answer. The policy standards and procedures announced in May of 
this year, which govern the United States' use of force in 
counterterrorism operations outside the United States and areas of 
active hostilities, apply to military operations undertaken pursuant to 
the 2001 Authorization for Use of Military Force, although they do not 
apply to ongoing military operations in Afghanistan. Beyond the bedrock 
requirement of a legal basis--where the use of force is authorized 
under the 2001 Authorization for the Use of Military Force and hence 
would be legally permissible--the standards and procedures set forth 
additional requirements for when force should be used as a matter of 
policy, with particular emphasis on whether the action will protect 
American lives.
    Question. In your view, would it be appropriate for the United 
States to use military force against terrorist groups that have not 
engaged in hostilities directly against the United States, but merely 
shown an intent to do so? If so, under what circumstances?
    Answer. The use of military force may be appropriate when necessary 
to stop an imminent terrorist attack on the United States, U.S. persons 
or interests abroad, or a U.S. ally by a group that has not previously 
engaged in hostilities directly against the United States.
    Question. What impact will the end of combat operations in 
Afghanistan at the end of 2014 have on the application of the AUMF?
    Answer. I understand that the U.S. and NATO roles in Afghanistan 
after 2014 are still being discussed within the U.S. Government and 
NATO and negotiated with the Government of Afghanistan. I also note 
that the President recently committed to engaging Congress and the 
American people in efforts to refine, and ultimately repeal, the 2001 
Authorization for Use of Military Force. Thus, I do not think one can 
predict today whether or how the 2001 Authorization for Use of Military 
Force might be applied in Afghanistan after 2014.
    Question. What is your understanding of the current status of the 
DOD Law of War Manual and what steps will you take, if confirmed, to 
complete this important document?
    Answer. I am advised that the DOD Law of War Manual is in the final 
revision process managed by the DOD Law of War Working Group. That 
group is chaired by a representative from the DOD Office of General 
Counsel and is composed of representatives of the Judge Advocates 
General and the General Counsels of the military departments, the Staff 
Judge Advocate to the Commandant of the Marine Corps, and the Legal 
Counsel to the Chairman of the Joint Chiefs of Staff. I understand that 
significant progress has been made through the concerted efforts of 
dedicated military and civilian lawyers within DOD and with assistance 
from colleagues at the Departments of State and Justice. If confirmed, 
I will support these efforts with a view to completing this important 
manual as expeditiously as possible.
                            unmanned systems
    Question. What are your views on whether the Department of Defense 
should assume greater responsibility for the operation of unmanned 
aerial systems (drones)?
    Answer. The U.S. military has used remotely piloted aircraft since 
they were first developed to conduct intelligence, surveillance and 
reconnaissance, as well as direct action during armed conflict. I 
support the administration's policy as it relates to the responsibility 
of the Department of Defense for the operation of such aircraft.
    Question. What legal benefits or risks to national security would 
be implicated if the Department were to take the lead role in operating 
unmanned systems?
    Answer. The role of the Department of Defense in operating remotely 
piloted aircraft, and associated benefits and risks, are chiefly policy 
considerations. If confirmed, my focus with respect to military 
operations using remotely piloted aircraft will be on the legal basis 
for such operations and compliance with applicable law in conducting 
such operations.
                     contractors on the battlefield
    Question. U.S. military operations in Iraq and Afghanistan have 
relied on contractor support to a greater degree than any previous U.S. 
military operations. The extensive involvement of contractor employees 
in a broad array of activities--including security functions--has 
raised questions about the legal accountability of contractor employees 
for their actions.
    Do you believe that current Department of Defense regulations 
appropriately define and limit the scope of security functions that may 
be performed by contractors in an area of combat operations?
    Answer. I am not familiar with the referenced Department 
regulations in this area, but am prepared to review them, if confirmed.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. See answer above.
    Question. Do you believe that current Department of Defense 
regulations appropriately define and limit the scope of contractor 
participation in the interrogation of detainees?
    Answer. I am not familiar with the referenced Department 
regulations in this area, but am prepared to review them, if confirmed.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. See answer above.
    Question. OMB Circular A-76 defines ``inherently governmental 
functions'' to include ``discretionary functions'' that could 
``significantly affect the life, liberty, or property of private 
persons''.
    In your view, is the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function?
    Answer. I have not previously had any substantial involvement with 
this set of issues and am not familiar with how the concept of 
inherently governmental function has been defined and applied in this 
context. I am advised that by incorporating the definition from the 
Federal Activities Inventory Reform Act (title 31 U.S.C. 501 note), 
section 2463 of title 10, U.S.C., defines inherently governmental 
function as a function that is so intimately related to the public 
interest that it must be performed by government employees. If 
confirmed, I intend to look at the application of this provision with 
considerable care.
    Question. In your view, is the interrogation of enemy prisoners of 
war and other detainees during and in the aftermath of hostilities an 
inherently governmental function?
    Answer. See answer above.
    Question. What role do you expect to play, if confirmed, in 
addressing the issue of what functions may appropriately be performed 
by contractors on the battlefield?
    Answer. If confirmed, I expect to be actively involved in 
addressing the legal issues relating to the proper role of contractors 
on the battlefield.
    Question. The Military Extraterritorial Jurisdiction Act (MEJA) was 
enacted in 2000 to extend the criminal jurisdiction of the U.S. courts 
to persons employed by or accompanying the Armed Forces outside the 
United States.
    In your view, does MEJA provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I understand the importance of appropriate accountability 
for all persons supporting our Armed Forces wherever located. I am 
generally aware of the Military Extraterritorial Jurisdiction Act of 
2000 (MEJA), but I am not familiar with the particular provisions and 
how well they have served to provide criminal jurisdiction over 
contractor employees in areas of combat operations.
    Question. What changes, if any, would you recommend to MEJA?
    Answer. I am not now in a position to propose any changes to MEJA. 
If confirmed, and if after further review I perceive a need, I will 
recommend any changes I believe to be warranted.
    Question. What role would you expect to play, if confirmed, in 
developing administration recommendations for changes to MEJA?
    Answer. If confirmed, I expect to be actively involved in any 
effort to develop administration recommendations for changes to MEJA.
    Question. Section 552 of the National Defense Authorization Act for 
Fiscal Year 2007 extended criminal jurisdiction of the military courts 
under the Uniform Code of Military Justice to persons serving with or 
accompanying an armed force in the field during time of declared war or 
a contingency operation, such as our current operations in Iraq and 
Afghanistan.
    In your view, does the UCMJ provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I support the position that civilians serving with or 
accompanying our Armed Forces overseas who commit crimes should be held 
appropriately accountable. I do not now have an informed view as to 
whether the UCMJ currently provides the appropriate criminal 
jurisdiction over contractor employees in areas of combat operations.
    Question. What is your view of the procedures agreed upon by the 
Department of Defense and the Department of Justice to reconcile 
jurisdictional responsibilities under MEJA and the UCMJ?
    Answer. I am aware generally that there are procedures to reconcile 
these responsibilities reflected in a Secretary of Defense memorandum 
of March 10, 2008. If confirmed, I am prepared to examine this 
memorandum and give thought to whether it reflects the appropriate 
balance.
    Question. What changes, if any, would you recommend to the UCMJ to 
ensure appropriate jurisdiction for alleged criminal actions of 
contractor employees?
    Answer. I have no recommendations for any such changes to the UCMJ 
at this time. If confirmed, and if after further review I perceive a 
need, I will recommend any changes I believe to be warranted.
                        military justice matters
    Question. Article 6 of the Uniform Code of Military Justice gives 
primary responsibility for legal advice concerning military justice to 
the Judge Advocates General.
    What is your understanding of the General Counsel's functions with 
regard to military justice and the Judge Advocates General?
    Answer. I understand that the General Counsel has a limited role in 
military justice, and no direct role in any particular military justice 
cases. The Secretary of Defense may become involved in military justice 
in limited circumstances. In those situations, the General Counsel 
provides legal advice to the Secretary.
    The General Counsel is also responsible for designating a non-
voting representative to the Joint Service Committee on Military 
Justice and may serve as an informal DOD liaison with the U.S. Court of 
Appeals for the Armed Forces.
    Question. In your view, how should the General Counsel approach 
military justice matters--both in terms of specific cases and general 
policy issues to provide useful advice without generating problems of 
unlawful command influence?
    Answer. As with other senior civilian and military leaders within 
the Department, the General Counsel must avoid any action that may 
constitute, or may appear to constitute, unlawful command influence.
    Question. The May 30, 2013 Defense Legal Policy Board (DLPB) report 
on military justice in combat zones recommended a change in joint 
doctrine to specify that discipline is the responsibility of Joint 
Force Commanders at all levels. The report recommended that this 
proposal should be presented to the DOD General Counsel and Secretary 
of Defense to be integrated into DOD and joint policy, and when 
appropriate, reviewed by the Joint Service Committee on Military 
Justice to be uniformly implemented by the Services.
    In your view, is it essential to preserve the role of the military 
commander, including the Joint Force Commander in deployed situations, 
for disposition of military justice matters?
    Answer. I understand that the May 30, 2013 report of the 
Subcommittee on Military Justice in Combat Zones and the Defense Legal 
Policy Board's June 14, 2013 memorandum transmitting that report to the 
Secretary of Defense endorsed the preservation of the role of the 
military commander, including the Joint Force Commander in deployed 
situations, in the disposition of military justice matters. As a 
general matter, I appreciate the central importance of the commander's 
role in the military justice system historically, but I am not 
sufficiently familiar with the subcommittee's report and the Board's 
memorandum to express a view on any recommendations in this regard. I 
look forward to reviewing them, if confirmed.
    Question. What are your views on whether it would be appropriate to 
preserve the role of the commander as disposition authority, for the 
entire spectrum of military operations, from deployment to 
redeployment, in combat areas as well as in garrison?
    Answer. I am not now prepared to offer specific assessments of the 
optimal command role in the disposition of allegations of crimes and 
other misconduct committed by servicemembers. If confirmed, I intend to 
look at this issue with considerable care.
    Question. If confirmed, what action will you take to ensure that 
the recommendations of the DLPB with respect to military justice in 
combat zones are implemented by DOD and the services?
    Answer. If confirmed, I expect to review the recommendations of the 
Subcommittee and the Board, advise the Secretary of Defense with 
reference to those recommendations, and assist in seeking appropriate 
changes in policy, regulations or statutes to implement such 
recommendations as the Secretary adopts.
             prevention of and response to sexual assaults
    Question. In 2012, for the fourth year in a row, there were more 
than 3,000 reported cases of sexual assault in the military, including 
2,558 unrestricted reports, and an additional 816 restricted reports 
(restricted, meaning that, in accordance with the victim's request, 
they were handled in a confidential manner and not investigated). 
Moreover, a recent survey conducted by the DOD indicates that the 
actual number of sexual offenses could be considerably higher, as 6.1 
percent of Active Duty women and 1.2 percent of Active Duty men 
surveyed reported having experienced an incident of unwanted sexual 
contact in the previous 12 months.
    What is your understanding of the role of the DOD General Counsel 
in addressing the problem of sexual assault in the military?
    Answer. If confirmed, I expect to play an active role, as the 
Department's chief legal officer and as a member of the Secretary's 
senior leadership team, in the ongoing effort to eradicate this scourge 
from the military. I will oversee the attorneys currently advising the 
Under Secretary of Defense for Personnel and Readiness and the Sexual 
Assault Prevention and Response Office, assisting in the implementation 
of the 2013 DOD Sexual Assault Prevention and Response Strategic Plan, 
and supporting the important work of the Response Systems Panel. Beyond 
that, I hope to work with the Secretary and other Department leaders--
and with this committee--to make sure that solving this problem remains 
a top priority, that no effort is spared to get a demonstrably 
effective system in place, and that any legal impediments are promptly 
addressed.
    Question. Do you believe the DOD General Counsel's role in 
addressing the problem of sexual assault in the military is 
appropriate, and, if not, how should it be modified?
    Answer. If confirmed, I will look at the role of the DOD General 
Counsel in addressing the problem of sexual assault in the military to 
assess whether I or my office can do any more to assist.
    Question. What is your assessment of the DOD sexual assault 
prevention and response program?
    Answer. As I understand it, sexual assault against servicemembers 
is a gravely serious problem and has been a longstanding one. The 
problem goes beyond the incidence of crimes involving sexual assault 
and includes concern about possible impediments to coming forward such 
as fear of retaliation and lack of confidence that action will be 
taken. The fact that the problem has persisted despite previous efforts 
directed at both prevention and response is disturbing and I expect 
deeply frustrating to those who have been working to end it. I am not 
sufficiently informed to express a personal view on the current DOD 
sexual assault prevention and response program. I understand that the 
program has undergone numerous changes, that several provisions from 
the past two authorization acts are being implemented, and that 
additional legislative proposals are under active consideration. If 
confirmed, I will do my level best working with DOD lawyers, Department 
leadership and Congress to rid the military of sexual assault.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. While I am not now in a position to express a personal 
view, I am advised that an unrestricted report of sexual assault allows 
law enforcement involvement and investigation, while restricted 
reporting allows a victim to disclose the details of the assault to 
specific individuals and receive medical treatment and counseling 
without involving law enforcement or triggering an automatic 
investigation. The goal of restricted reporting is to give the victim 
the support and confidence eventually to come forward with an 
unrestricted report so the offender can be held accountable and to 
strike an appropriate balance between the need for the prosecution of 
sexual offenders on the one hand and the privacy and physical and 
mental well-being of the victim on the other.
    Question. What is your understanding of the adequacy of DOD 
oversight of military service implementation of the DOD and Service 
policies for the prevention of and response to sexual assaults?
    Answer. While I am not now in a position to express a personal 
view, it is my understanding that there is robust oversight of the 
Department policies for the prevention of and response to sexual 
assaults. I am advised that the Secretary of Defense has a weekly 
accountability and assessment meeting with senior Department leaders 
and that DOD participates in the White House Health of the Force Group 
meetings to discuss DOD actions to combat sexual assault. I am also 
aware that the Secretary issued a Strategic Plan directing the Services 
to align their programs with the Strategic Plan, and that the Director, 
Sexual Assault Prevention and Response Office hosts quarterly 
integrated product teams attended by senior leaders from the Services, 
National Guard Bureau, Office of Secretary of Defense, and Office of 
the DOD Inspector General. I also understand that the Joint Chiefs of 
Staff established a quarterly executive council to assess the 
effectiveness of sexual assault prevention and response across the 
joint force.
    Question. What is your assessment of current DOD policy as it 
pertains to the legal issues surrounding the investigation and 
prosecution of sexual assault cases?
    Answer. I am not now prepared to offer assessments with reference 
to the legal issues surrounding the investigation and prosecution of 
sexual assault cases. If confirmed, I will engage with the Judge 
Advocates General and other civilian and military leaders and subject 
matter experts to determine what issues, if any, need to be addressed.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults have 
occurred?
    Answer. I think the chain of command is instrumental in changing 
the military culture. Commanders are responsible for the good order and 
discipline of their units and are indispensable to creating a zero 
tolerance climate for sexual assaults. However, eradicating sexual 
assault cannot be limited to the chain of command--everyone has a role 
in changing military culture to ensure that servicemembers can serve 
without fear of sexual assault.
    Question. In your view, what would be the impact of requiring judge 
advocates outside the chain of command, rather than commanders, to 
determine whether allegations of sexual assault should be prosecuted by 
the military?
    Answer. I am not now in a position to express a personal view 
concerning the optimal roles of commanders and judge advocates in the 
disposition of sexual assault allegations. I understand that this is 
the subject of intense debate. If confirmed, I will examine the issue 
and hope to play a constructive role in the debate.
    Question. Article 60 of the Uniform Code of Military Justice 
requires the convening authority to take action on the sentence issued 
by a court-martial and authorizes a convening authority, in his sole 
discretion, to take action of the findings of a court-martial, 
including setting aside a finding of guilty or changing a finding of 
guilty to a finding of guilty of a lessor included offense.
    What is your view about the authority of a convening authority to 
set aside or modify findings of guilt and authority to reduce a 
sentence imposed by court-martial?
    Answer. I understand that the Department has proposed legislation 
that would modify Article 60 by allowing convening authorities to amend 
findings of guilt only in those cases where the servicemember was 
acquitted of a more serious offense and the offense of which he was 
found guilty is a minor offense, not normally disposed of by court-
martial. The Department's proposal would also require the convening 
authority to explain in writing any modifications made to the court-
martial findings and sentence. I support this proposal. As to limiting 
the authority of the convening authority to modify a court-martial 
sentence, one would have to consider the consequences such a limitation 
would have on the ability to reach plea bargains in appropriate cases, 
such as where the victim wishes to avoid being called as a witness in a 
contested trial.
                 religious activity in the armed forces
    Question. What is your understanding of current policies and 
programs of the Department of Defense and the military services 
regarding religious practices in the military?
    Answer. I understand that the Department of Defense has a long 
history of supporting, to the extent possible, the free exercise of 
religion by those servicemembers who choose to do so, while respecting 
the rights of those who do not.
    Question. In your view, do policies concerning religious 
accommodation in the military appropriately accommodate the free 
exercise of religion and other beliefs, including individual 
expressions of belief, without impinging on those who have different 
beliefs, including no religious belief?
    Answer. I have not had the opportunity to study the Department's 
current policies in sufficient detail to allow me to make a judgment on 
the appropriateness of those policies. I understand that the current 
Department policy on religious accommodation is being revised. If 
confirmed, I intend to become involved in that revision process.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact unit cohesion and 
good order and discipline?
    Answer. Again, I am unable to make a judgment regarding the 
Department's current policies. However, I believe this question 
correctly highlights the considerations that must be balanced when 
considering religious accommodation: the individual servicemember's 
free exercise of religion or no religion, and the Department's 
requirement to maintain unit cohesion, good order and discipline, and 
the other elements that comprise military readiness.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious belief?
    Answer. I believe that military chaplains perform a vital service 
not only for servicemembers and their families, but also for commanders 
as advisors. I also believe that military chaplains should be allowed 
to perform religious services in accordance with the tenets of their 
religions and without interference from the chain of command. While I 
am not in a position to opine on the existing policies and practices, I 
understand that the DOD policy governing the military chaplains' 
program is being revised, and, if confirmed, I intend to become 
involved in that revision process.
                              legal ethics
    Question. What is your understanding of the action a Department of 
Defense attorney should take if the attorney becomes aware of improper 
activities by a Department of Defense official who has sought the 
attorney's legal advice and the official is unwilling to follow the 
attorney's advice?
    Answer. All Department attorneys are under an obligation to 
faithfully comply with all applicable laws and regulations, including 
regulatory reporting requirements. DOD Directive 5505.06, 
``Investigations of Allegations Against Senior Officials of the 
Department of Defense,'' requires referral to the DOD Inspector General 
of suspected misconduct by senior DOD officials, while DOD regulation, 
DOD 5500.07-R (Joint Ethics Regulation), requires DOD personnel to 
report suspected violations of the criminal and administrative rules on 
ethics and conflicts of interest to appropriate DOD authorities, e.g., 
the Defense Criminal Investigative Service.
    Generally, if a DOD attorney learns of improper activities by an 
official who has sought his or her legal advice but is unwilling to 
follow it, the attorney should immediately notify appropriate 
authorities, usually his or her legal supervisor (or the senior 
attorney in the next higher level of his or her organization), for 
review and appropriate action by that higher level official. This is an 
appropriate way to escalate concerns to ensure that suitable corrective 
action is promptly taken.
    Question. Do you believe that the present limits on pro bono 
activities of government attorneys are generally correct as a matter of 
policy or does the policy need to be reviewed?
    Answer. In my judgment, participation in pro bono activities and 
professional legal associations contributes in a meaningful way to the 
continued professional development of the Federal legal workforce, and, 
if confirmed, I would encourage DOD attorneys to participate in pro 
bono activities consistent with the law. To my knowledge, the present 
limits on pro bono activities are appropriate. I understand that my 
predecessor issued a pro bono policy. If confirmed, I am prepared to 
review that policy to ensure it meets the current needs of DOD and the 
attorneys who wish to contribute their services.
    As you may know, two Federal statutes prohibit (with only minor 
exceptions) Federal personnel from representing clients before the 
Federal Government, including the Federal courts. That said, I am aware 
that there are a number of opportunities for DOD attorneys to 
participate in a variety of pro bono activities, including drafting 
wills and representing clients in domestic violence cases, landlord/
tenant disputes, and personal injury cases, when those matters are 
before state rather than Federal courts.
    Question. In your view, do the laws, regulations and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of Defense provide adequate guidance?
    Answer. To my knowledge, the laws, regulations, and guidelines that 
establish rules of professional responsibility for DOD attorneys are 
appropriate. If confirmed, I am prepared to examine the adequacy of the 
professional responsibility rules for attorneys in the DOD Office of 
General Counsel and the Defense Legal Services Agency, and make 
appropriate modifications or issue supplemental guidance if warranted.
                             law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views whether or not the United States should accede 
to UNCLOS?
    Answer. I support U.S. accession to the Law of the Sea Convention, 
and I know that the administration including Secretary Hagel strongly 
supports accession. Although we have succeeded to date in preserving 
and protecting our navigational freedoms through reliance on customary 
international law, joining the Convention would place our national 
security on a firmer legal footing. Customary international law changes 
over time, subject to state practice. Treaty law remains the firmest 
legal foundation upon which to base our global presence.
    Question. From a national security standpoint, what do you see as 
the legal advantages and disadvantages of the United States being a 
party to UNCLOS?
    Answer. I agree with Secretary Hagel that becoming a party to the 
Law of the Sea Convention would enhance the U.S. security posture 
around the globe in several significant ways. First, accession would 
enable the United States to reinforce all of the rights, freedoms, and 
uses of the sea and airspace codified in the Convention, including the 
navigational and over-flight rights that are critical to the global 
mobility of U.S. forces, as well as the right to submit extended 
continental shelf claims that would help us preserve the rights to 
potential resources. Additionally, accession would help the United 
States promote a common rules-based approach in the resolution of 
territorial and maritime disputes, particularly in East Asia, thereby 
reducing international tension. Further, accession would add to the 
Department's credibility in a large number of multilateral venues where 
Law of the Sea matters are often discussed. Lastly, accession would 
reassure some nations that have expressed concerns over the legality of 
cooperative security efforts promoted by the United States, such as the 
Proliferation Security Initiative. The United States has longstanding 
interests in freedom of the seas and respect for international law, and 
our accession to the Convention would further demonstrate our 
commitment to those national interests.
    I do not see national security disadvantages of being a party to 
the Convention. Although some have suggested that the treaty could 
subject our maritime forces to the jurisdiction of international 
tribunals, the Convention expressly permits a party to exclude from 
international dispute settlement those matters that concern ``military 
activities.'' Thus, the United States could assert the exclusive right 
to determine what constitutes a military activity.
    Question. In your view, is customary international law alone 
sufficient to safeguard U.S. navigational and overflight rights and 
freedoms worldwide?
    Answer. As noted above, accession would enable the United States to 
reinforce all of the rights, freedoms, and uses of the sea and airspace 
codified in the Convention, including the navigational and over-flight 
rights that are critical to the global mobility of U.S. forces. 
Although we have succeeded to date in preserving and protecting our 
navigational freedoms through reliance on customary international law, 
joining the Convention would place our national security on a firmer 
legal footing. Customary international law changes over time, subject 
to state practice. Treaty law remains the firmest legal foundation upon 
which to base our global presence.
    processing the annual department of defense legislative request
    Question. One of the current responsibilities of the General 
Counsel of the Department of Defense is to coordinate the Department's 
legislative program and to provide the Department's views on 
legislative proposals initiated from outside the Department.
    If confirmed, what actions will you take to ensure that the 
Department's legislative proposals are submitted in a timely manner to 
ensure ample opportunity for consideration by Congress before markup of 
the annual National Defense Authorization Act?
    Answer. I understand that the Office of General Counsel and the 
Office of the Assistant Secretary of Defense for Legislative Affairs 
have worked, and continue to work, closely together on improvements to 
the Department's Legislative Program--in consultation with the Office 
of Management and Budget--to transmit the Department's legislative 
proposals to Congress in a timely manner. If confirmed, I will monitor 
these efforts and look for any ways in which the process can be 
improved.
    Question. What actions would you take, if confirmed, to ensure 
Congress receives the Department's views on other proposed legislation 
in a timely manner?
    Answer. I understand that the Office of General Counsel has worked 
closely with the Office of the Assistant Secretary of Defense for 
Legislative Affairs and the Office of Management and Budget to respond 
to request for views on congressional bills expeditiously. If 
confirmed, I will work to ensure that the Department provides Congress 
with timely views on proposed legislation.
                            judicial review
    Question. What is your understanding of the appropriate role of the 
Article III courts in the review of military activities?
    Answer. Judicial review of ongoing military operations would pose 
difficult constitutional and practical difficulties. Many of the 
military's other activities are appropriately subject to judicial 
review, though the courts often exercise ``a healthy deference to 
legislative and executive judgments in the area of military affairs.'' 
Rostker v. Goldberg, 453 U.S. 57, 66 (1981).
         role in the officer promotion and confirmation process
    Question. In your view, what is the role of the General Counsel of 
the Department of Defense in ensuring the integrity and proper 
functioning of the officer promotion process?
    Answer. It is essential that the integrity and independence of the 
promotion selection process be maintained. Based on my prior service at 
the Department of Defense, I know that the Secretary of each military 
department, in consultation with his or her General Counsel and Judge 
Advocate General, has the initial responsibility to ensure that the 
promotion selection process for both Regular and Reserve officers is in 
compliance with law and DOD policy. However, I am also aware that all 
reports of promotion selection boards are reviewed by the DOD Office of 
General Counsel prior to final action on the report by the Secretary of 
Defense or the Under Secretary of Defense for Personnel and Readiness.
    If confirmed and I were to determine that a promotion selection 
board failed to conform to law or policy, it would be my duty to inform 
the Secretary of Defense or Under Secretary of Defense for Personnel 
and Readiness of the irregularities and to recommend appropriate 
corrective action. Further, in providing advice to the Secretary of 
Defense and the Under Secretary of Defense for Personnel and Readiness, 
I would ensure that officer promotion policies promulgated in DOD 
regulations fairly and accurately reflect the law.
    Question. What is the role of the General Counsel of the Department 
of Defense, if any, in reviewing and providing potentially adverse 
information pertaining to a nomination to the Senate Armed Services 
Committee?
    Answer. It is my understanding that the DOD Office of General 
Counsel reviews all nomination packages pertaining to officers with 
attributed adverse information before the package is forwarded to the 
Secretary of Defense for approval. The General Counsel ensures that any 
adverse information attributed to such officers is supported by 
evidence in the associated reports of investigation. I am informed that 
the General Counsel frequently provides specific advice to the Under 
Secretary of Defense for Personnel and Readiness and the Secretary of 
Defense concerning difficult or unusual cases.
             litigation involving the department of defense
    Question. In your opinion, what is the relationship between the 
Department of Defense and the Department of Justice with respect to 
litigation involving the Department of Defense?
    Answer. Although the Department of Justice has statutory 
responsibility to represent the United States, its agencies, and its 
officers, including the Department of Defense, in all litigation 
matters, Department of Defense attorneys often work directly with 
counsel at the Department of Justice in cases in which DOD, or one or 
more of its components or officials, is a party or has an interest.
    Question. In your view, does the Department need more independence 
and resources to conduct its own litigation or to improve upon its 
current supporting role?
    Answer. At this time, I am not aware that any changes are needed. 
My understanding is that the Department's lawyers have exceptionally 
strong relationships with their counterparts at the Department of 
Justice, and that the current arrangement serves the Department well.
                       court of appeals decision
    Question. On January 4, 2000, the U.S. Court of Appeals for the 
District of Columbia Circuit decided the case of National Center for 
Manufacturing Sciences v. Department of Defense, 199 F. 3d 507 (D.C. 
Cir. 2000). The court concluded that ``Because of the existence of 
title 10 U.S.C. section 114, it is clear that any monies appropriated 
for NCMS by Congress for research must be authorized before they can be 
appropriated and distributed''; and ``Because title 10 U.S.C. section 
114(a)(2) requires authorization of these funds before they become 
available, appropriation alone is insufficient.''
    What is your view of the court's decision in this case and its 
implications regarding the obligation of funds that are appropriated, 
but not authorized?
    Answer. I am aware of the concerns about whether funds can be 
utilized that are appropriated but not authorized. In this regard, 
situations where funds have been appropriated but not authorized are 
often complex and may involve unique statutory language. The Department 
has always been sensitive to the concerns that exist whenever the 
amounts appropriated may exceed the amounts authorized and, even before 
the 2000 decision cited in the question, has worked closely with the 
authorizing and appropriating committees when such situations arise. If 
confirmed, I hope and expect that the Department, and the DOD General 
Counsel, will continue its practice of working closely with our 
oversight committees whenever this situation appears to be presented.
               role in military personnel policy matters
    Question. What role, if any, should the General Counsel play in 
military personnel policy and individual cases, including cases before 
the service boards for the correction of military records?
    Answer. The potential range of issues that might require legal 
advice from the Office of General Counsel is very broad. The Office of 
General Counsel provides legal advice on policy issues pertaining to 
military personnel, working closely with the Office of the Under 
Secretary of Defense for Personnel and Readiness, which has 
responsibility for Department policy for the correction boards of the 
military departments. The Office of General Counsel performs a pre-
publication legal sufficiency review of every DOD policy issuance 
pertaining to military personnel.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Carl Levin
                         new law of war manual
    1. Senator Levin. Mr. Preston, is there a consensus among the 
senior military lawyers of the four Services that the new Law of War 
manual, as it has been rewritten, accurately and adequately reflects 
the law governing U.S. Armed Forces?
    Mr. Preston. I have been informed that the draft DOD Law of War 
manual is still in the final revision process. My understanding is that 
senior military lawyers of the four Services are helping to revise it 
and are integral to the review process, and that they will continue to 
be actively involved until the manual is completed and ready for 
publication. If confirmed, I intend to consult with the senior military 
lawyers in this regard.
                                 ______
                                 
        Question Submitted by Senators Carl Levin and Mark Udall
                   detention and interrogation issues
    2. Senator Levin and Senator Udall. Mr. Preston, on June 27, 2013, 
the Central Intelligence Agency (CIA) submitted its formal response to 
the Senate Select Committee on Intelligence's (SSCI) Study of the CIA's 
Detention and Interrogation Program. What was your role in the review 
and approval of the CIA response to the SSCI's study?
    Mr. Preston. My role with respect to the Agency's response to the 
SSCI's study is perhaps best understood in the context of my broader 
role as General Counsel of the CIA. For the past 4-plus years, my 
highest priority as General Counsel has been working to ensure that the 
Agency is and remains in full compliance with all applicable law in the 
conduct of intelligence activities, with particular attention to 
ongoing counterterrorism programs. With respect to the former detention 
and interrogation program, which was ended by Executive Order prior to 
my arrival, the primary focus of the Office of General Counsel during 
my tenure has been on supporting the work of the Department of Justice 
and the SSCI in their respective reviews of the former detention and 
interrogation program, with particular emphasis on the document 
production process, as well as supporting the U.S. Government's efforts 
to criminally prosecute terrorist detainees.
    The preparation of Agency comments following receipt of the SSCI 
report was undertaken at the direction of the then-Acting Director and 
performed by a team of senior career officers. The product of their 
work was ultimately submitted to the Director, via the Deputy Director, 
for approval. My involvement in this process was limited. I did not 
personally participate in the team's formulation of substantive 
comments, nor did I independently review the factual basis for their 
findings and conclusions. I reviewed the comments, with particular 
attention to the recommendations, and made suggestions, chiefly as to 
presentation, in hopes of enhancing the utility of the comments, to the 
agency and the committee, in the discussion between them that would 
follow. My role was principally one of advising the Director and the 
Deputy Director as they considered how best to engage with the 
committee in light of its report and, of critical importance, how to 
improve the Agency's conduct and oversight of other sensitive programs 
going forward.

    3. Senator Levin and Senator Udall. Mr. Preston, on November 20, 
2008, the Senate Armed Services Committee issued a report titled, 
Inquiry into the Treatment of Detainees in U.S. Custody. Have you 
reviewed this report?
    Mr. Preston. I reviewed portions of the referenced report in 2009, 
prior to my appointment as General Counsel of the CIA.

    4. Senator Levin and Senator Udall. Mr. Preston, do you disagree 
with any of the report's conclusions? If so, which ones and why?
    Mr. Preston. I do not recall having any disagreement with the 
report's conclusions. I should point out that I am not sufficiently 
familiar with the facts or record underlying the report to offer a 
personal view on factual propositions. As I recall, a central focus of 
the report is on the U.S. Government's reliance on Survival, Evasion, 
Resistance, and Escape (SERE) techniques in deriving interrogation 
techniques that were used on detainees. While I have no expertise in 
SERE training or methods of interrogation, it is my firm view that the 
fact that certain techniques have been used to train servicemembers in 
withstanding abusive treatment if captured is not indicative of the 
effectiveness of those techniques in obtaining information from 
detainees, nor does it say anything about the lawfulness or propriety 
of using such techniques to interrogate detainees.
                                 ______
                                 
             Question Submitted by Senator Claire McCaskill
bonuses paid to senior executive service employees of the department of 
                                defense
    5. Senator McCaskill. Mr. Preston, if confirmed, will you commit to 
reviewing and changing, if necessary, the metrics used to determine the 
performance level of Senior Executive Service (SES) employees in the 
Office of General Counsel and provide information to this committee 
regarding the progress and results of your review?
    Mr. Preston. As General Counsel of the Department of the Navy and 
the Principal Deputy General Counsel of the Department of Defense, I 
worked closely with the SES level attorneys in the DOD Office of 
General Counsel. I was impressed by their uniform professional 
excellence, selfless dedication, and commitment to the rule of law. My 
view of the outstanding performance of these SES level attorneys has 
been strengthened during my service as the CIA General Counsel. In a 
period of furloughs, pay freezes, and hiring freezes, it is unlikely 
that funds will be available to pay bonuses, increasing the challenge 
of keeping the Office of General Counsel staffed with superb lawyers. 
Nonetheless, if confirmed, I will review the criteria used to evaluate 
the performance of SES level attorneys in the Office of General Counsel 
and report the results of that review as you request. If I determine 
that changes are necessary, I will implement them.
                                 ______
                                 
               Questions Submitted by Senator Mark Udall
                           law of war manual
    6. Senator Udall. Mr. Preston, it is my understanding that in 1995, 
DOD decided to prepare a single, department-wide manual on the Law of 
War. This was designed to be an authoritative, peer-reviewed statement 
of the Law of War as recognized by the United States, based on both 
treaty obligations and state practice. I also understand that a Law of 
War Working Group, consisting of experts from the Services and the 
Office of the Secretary of Defense (OSD) Office of the General Counsel 
was formed in 1996 and charged with drafting the new manual. There were 
experts from the State Department and law of war experts from a number 
of other countries that provided input and advice during the drafting 
process. The Department of Justice (DOJ) was invited to join the 
process, but declined. I also understand that in 2009, a 1000 page 
draft underwent international peer review by senior military law 
experts from Canada, Australia, New Zealand, and the United Kingdom 
(U.K.) as well as experts from academic institutions in the United 
States and the U.K. I also understand that in 2010, when the draft 
manual was in the final stages, the DOJ intervened and requested an 
opportunity to review the draft--despite having declined to participate 
earlier. I also understand that despite commitments made to the DOD 
General Counsel that the DOJ review would be limited to substantive 
issues and would be conducted within a month, the DOJ review has yet to 
be completed. I also have received information indicating that the 
changes proposed by DOJ to date have been at odds with the tenets and 
principles of the Law of War reflected in the peer-reviewed draft of 
2010, to the point that it seems unlikely that the current draft as 
changed would be able to gain consensus as an authoritative statement 
of the Law of War either within DOD or more broadly. If confirmed, will 
you commit to providing the committee as soon as possible information 
detailing the current status of the draft Manual?
    Mr. Preston. If confirmed, I will inquire into the current status 
of the draft DOD Law of War manual and provide the committee 
information detailing its status as soon as possible. As I noted in 
response to an earlier question, it is my understanding that the Law of 
War manual is undergoing internal review, and that that senior military 
lawyers of the four Services are helping to revise it and are integral 
to the review process, and that they will continue to be actively 
involved until the manual is completed and ready for publication.

    7. Senator Udall. Mr. Preston, if confirmed, will you commit to 
providing the committee in written form your independent assessment of 
whether the background summary above is accurate, and, if you conclude 
that some or all of the information above is inaccurate or incomplete, 
to advising the committee in detail about which information is 
inaccurate or incomplete, and what the correct information is?
    Mr. Preston. If confirmed, I will inquire into the current status 
of the draft DOD Law of War manual and provide the committee 
information detailing its status as soon as possible. As I noted in 
response to an earlier question, it is my understanding that the Law of 
War manual is undergoing internal review, and that that senior military 
lawyers of the four Services are helping to revise it and are integral 
to the review process, and that they will continue to be actively 
involved until the manual is completed and ready for publication.

    8. Senator Udall. Mr. Preston, if confirmed, will you commit to 
taking such steps as may be necessary to ensure that content and form 
of the draft Manual is such that it is suitable both as a peer-
reviewed, authoritative statement of the Law of War as accepted by the 
United States, and as a practical guide, incorporating historical 
examples, for Law of War practitioners, especially those deployed with 
U.S. operational forces?
    Mr. Preston. If confirmed, I will take such steps within my power 
as may be necessary to ensure that the content and form of the draft 
DOD Law of War manual reflects input from peer reviewers and is 
suitable both as an authoritative statement of the Law of War as 
accepted by the United States, and as a practical guide for Law of War 
practitioners, especially those deployed with U.S. operational forces. 
Historical examples should inform and illustrate the manual as 
appropriate.

              study on detention and interrogation program
    9. Senator Udall. Mr. Preston, having reviewed the SSCI's study and 
participated in the CIA's response, do you believe that DOJ was always 
provided accurate information about the CIA's detention and 
interrogation program? If not, do you believe that any inaccurate 
information was material to DOJ's legal analysis?
    Mr. Preston. My understanding is that DOJ did not always have 
accurate information about the detention and interrogation program in 
that the actual conduct of that program was not always consistent with 
the way the program had been described to DOJ. Of particular note, I 
understand that, in a number of instances, enhanced interrogation 
techniques, specifically waterboarding, were applied substantially more 
frequently than previously had been described to DOJ. I cannot say what 
DOJ would or would not have considered material at the time. I can tell 
you that, if I were in a comparable situation, I would consider 
information of this nature to be material.
    While I have been General Counsel of the CIA, the relationship 
between the Agency and DOJ's Office of Legal Counsel (OLC) has been 
characterized by frequent and candid communication concerning the 
Agency's sensitive programs, with particular attention to ensuring that 
the OLC is provided complete and accurate information on which to base 
its legal advice to the Agency. In addition, the Agency is developing 
an internal mechanism for periodically and systematically reviewing OLC 
opinions regarding sensitive programs to ensure that OLC is informed of 
any material changes in facts or circumstances.

                covert action/secret military operations
    10. Senator Udall. Mr. Preston, in your response to my questions 
about the difference between covert action and secret military 
operations, you noted that you had not yet ``wrestled with how one 
would advise the U.S. military on the precise parameters of that 
concept, and the precise concept of attribution in the military 
context.'' I'd like to give you another opportunity to answer my set of 
questions, which I'll list again here: In your view, when does a secret 
military operation meet the statutory definition of covert action and 
require a finding, and when does it not?
    Mr. Preston. While as CIA General Counsel I have not been called 
upon to advise with respect to the conduct of military operations, I 
would consider a secret military operation to meet the statutory 
definition of covert action: (a) if it were ``an activity or activities 
of the U.S. Government to influence political, economic, or military 
conditions abroad, where it is intended that the role of the U.S. 
Government will not be apparent or acknowledged publicly,'' and (b) if 
such activity did not fall under one of the four statutory exceptions:

    (1)  activities the primary purpose of which is to acquire 
intelligence, traditional counterintelligence activities, traditional 
activities to improve or maintain the operational security of U.S. 
Government programs, or administrative activities;
    (2)  traditional diplomatic or military activities or routine 
support to such activities;
    (3)  traditional law enforcement activities conducted by U.S. 
Government law enforcement agencies or routine support to such 
activities; or
    (4)  activities to provide routine support to the overt activities 
(other than activities described in paragraph (1), (2), or (3)) of 
other U.S. Government agencies abroad.

    It is my understanding that the Department of Defense conducts 
activities that fall under each of those four exceptions. Whether a 
particular secret military operation falls within one of the statutory 
exceptions to the definition of covert action or, absent attribution, 
would constitute covert action that must be authorized by the President 
under a Finding requires a fact-specific analysis, informed by 
historical military practice and precedent. If confirmed, I look 
forward to examining these matters with great care and attention.

    11. Senator Udall. Mr. Preston, if the military refuses to answer 
the public's questions about a reported operation, does it become a 
covert action? If not, what is the basis for that denial? As an 
example, why are unacknowledged 1208 assistance programs not covert 
action?
    Mr. Preston. The fact that certain information regarding a military 
operation is not discussed publicly does not necessarily mean that the 
operation constitutes covert action. As defined by the statute, covert 
action is an activity or activities to ``influence political, economic, 
or military conditions abroad, where it is intended that the role of 
the U.S. Government will not be apparent or acknowledged publicly,'' 
subject to specific exceptions. Thus, for example, military operations 
that are traditional intelligence, counterintelligence, or military 
activities and routine support to such activities are excepted from the 
statutory definition of covert action. Further, my understanding is 
that a particular secret military operation conducted in the context of 
broader campaigns that are publicly known is not regarded as covert 
action, which by definition must be neither ``apparent'' nor 
``acknowledged publicly''.
    While I am not familiar with programs under section 1208, I 
understand that certain aspects of the support provided under the 
authority of section 1208 are classified to protect the operation and 
the personnel involved. I am further advised that support provided 
under the authority of section 1208 to operations by U.S. Special 
Operations Forces to combat terrorism is not considered covert action 
because it is explicitly authorized by Congress and because it falls 
within the exception to section 503 of the National Security Act for a 
``traditional military activity.'' I also understand that the 
Department of Defense fully informs Congress about activities under the 
authority of section 1208, in accordance with the reporting 
requirements of that section.
    If confirmed, I expect to examine these matters with great care and 
attention.

    12. Senator Udall. Mr. Preston, under what circumstances can a 
secret military program, as distinct from a particular technical 
operation, be briefed only to the chairman and ranking member?
    Mr. Preston. It is my understanding that in the context of special 
access programs (SAPs) of the Department of Defense, there is a narrow 
set of circumstances under which the Secretary of Defense may determine 
that certain very sensitive information be reported only to the 
chairman and the ranking member of the congressional defense 
committees. Section 119 of title 10, U.S.C., ensures congressional 
oversight of DOD SAPs by requiring, inter alia, annual reports to the 
congressional defense committees on each SAP, as well as reports on 
initiation and termination of individual SAPs. In addition, section 
119(e) provides that, only on a ``case-by-case basis,'' the Secretary 
of Defense may waive a SAP reporting requirement, if the Secretary 
determines that the inclusion of the required information ``would 
adversely affect the national security.'' If the Secretary exercises 
this authority, the Secretary must provide the omitted information and 
the justification for the waiver, jointly to the chairman and ranking 
member of each of the defense committees. The congressional defense 
committees that receive these reports (including those whose chairman 
and ranking member receive the ``waived'' SAP information) are the 
Committee on Armed Services, the Committee on Appropriations, and the 
Defense Subcommittee of the Committee on Appropriations of the Senate, 
and the Committee on Armed Services, the Committee on Appropriations, 
and the Subcommittee on Defense of the Committee on Appropriations of 
the House of Representatives.
    In the event that a secret military program consisted of activities 
to be conducted pursuant to a Presidential Finding authorizing covert 
action, then the congressional reporting requirements in section 503 of 
the National Security Act would apply.

       authority for use of military force/law of armed conflict
    13. Senator Udall. Mr. Preston, under what circumstances, if any, 
can military operations be initiated outside a declared war zone 
without the concurrence of the President, the Secretary of Defense, or 
the U.S. chief of mission in the country?
    Mr. Preston. The President and the Secretary of Defense are at the 
top of the military chain of command and have full authority for 
direction and control of military operations. I understand that, in 
circumstances such as sudden attack or disaster, theater military 
commanders have certain delegated authority to initiate appropriate 
military responses as necessary to save lives and protect the forces 
under their command. All such operations remain subject to the 
direction and control of the President and the Secretary of Defense.
    Chiefs of mission are not in the military chain of command. I 
understand that, in some circumstances, the President or the Secretary 
of Defense has approved military operations on the condition that, if 
the chief of mission expresses disagreement with an activity, the 
theater military commander will resolve the disagreement or seek 
further guidance from the Secretary of Defense before proceeding with 
the activity. This ensures that the views of chiefs of mission 
regarding potential military operations outside a war zone are fully 
considered while also preserving the military chain of command.

    14. Senator Udall. Mr. Preston, in your advance questions for the 
committee, you stated that ``If there were no 2001 Authorization for 
Use of Military Force, the President would have authority as Commander-
in-Chief and Chief Executive to order military action against al Qaeda 
and associated forces if necessary to protect an important national 
interest, as with an imminent threat of violent attack.''
    Please elaborate on your statement regarding the President's 
authority to order military operations outside any Authorized for the 
Use of Force (AUMF) to ``protect an important national interest.'' Do 
you view this authority as broader than imminent threat?
    Mr. Preston. In my response, I noted imminent threat in particular 
as it would be the probable basis for ordering action against al Qaeda 
or in the broader counterterrorism context. I am aware of opinions of 
the Office of Legal Counsel, Department of Justice, that address the 
President's authority to order certain military operations without the 
prior, express authorization of Congress. Most recently, the April 2011 
opinion regarding Authority to Use Military Force in Libya stated that 
the Office of Legal Counsel has identified a variety of national 
interests that, alone or in combination, may justify use of military 
force by the President. I understand that an ``imminent threat'' is one 
possible circumstance in which it might be lawful and appropriate for 
the President to order military operations without prior congressional 
authorization, but that imminent threat is not the only circumstance 
when this may be appropriate. I also note that there are important 
limitations on the scope and duration of military operations that the 
President may order in the absence of congressional authorization.
                                 ______
                                 
             Question Submitted by Senator Joe Manchin III
                     sexual assault in the military
    15. Senator Manchin. Mr. Preston, DOD is adamantly opposed to 
taking sexual assault cases out of the chain of command. If confirmed, 
your advice to the Secretary of Defense on this matter will be very 
important. Sexual assault is not a new challenge to the military. You 
are familiar with this because you served as the Navy's general counsel 
in the late 1990s. How has your experience with the Navy shaped your 
views on the role of the chain of command in sexual assault cases?
    Mr. Preston. My prior experience as General Counsel of the 
Department of the Navy and as the Principal Deputy General Counsel of 
the Department of Defense enhances my understanding of the importance 
of the chain of command to a military organization and the historical 
integration of the military justice system into the command structure. 
However, I have not prejudged the optimal role of the commander in the 
process of adjudicating sexual assault allegations in the military. I 
am aware that the Response Systems Panel established under section 576 
of the National Defense Authorization Act for Fiscal Year 2013 is 
tasked with providing the Secretary of Defense and Congress with an 
assessment of the strengths and weaknesses of the military's systems to 
respond to sexual assaults. The Panel's work will include an assessment 
of the roles and effectiveness of commanders at all levels. If 
confirmed, I will consider with an open mind the appropriate role of 
the chain of command in sexual assault cases and provide my best advice 
to the Secretary.
                                 ______
                                 
                Questions Submitted by Senator Tim Kaine
                authorization for use of military force
    16. Senator Kaine. Mr. Preston, what is your understanding of the 
scope, duration, and limitations of the 2001 AUMF?
    Mr. Preston. The 2001 AUMF encompasses those who are part of, or 
substantially support, al Qaeda, the Taliban, or associated forces. 
Courts and Congress, in the context of detention, have endorsed the 
Executive branch view that the AUMF applies to associated forces that 
have joined the fight with al Qaeda and against the United States. My 
understanding of the concept of associated forces is that it is narrow, 
reaching only forces of an organized, armed group that has entered the 
fight alongside al Qaeda and a co-belligerent with al Qaeda in 
hostilities against the United States or its coalition partners.
    With respect to geographic limitations, the enemy in this conflict 
has not confined itself to any one country. The AUMF does not restrict 
the use military of force against al Qaeda to areas of active 
hostilities such as Afghanistan. Moreover, the United States can, 
consistent with international law, prosecute the armed conflict with al 
Qaeda outside such areas. U.S. military operations are conducted 
consistent with international law and with respect for another State's 
sovereignty. With reference to the use of force in counterterrorism 
operations outside the United States and areas of active hostilities, 
U.S. military operations are also subject to the policy standards and 
procedures announced in May of this year.
    The President has said that our systematic effort to dismantle 
terrorist organizations must continue, but that the war against al 
Qaeda, like all wars, must end. The President has also invited 
engagement with Congress on the future of the AUMF. As for the duration 
of the conflict with al Qaeda and continuing authority to counter 
terrorist threats post conflict, I believe our system works best when 
there is agreement between the two political branches on how the Nation 
should proceed. If confirmed, I hope to play a constructive role in 
that process.

    17. Senator Kaine. Mr. Preston, is there a need for AUMF reform 
now, given combat forces are being withdrawn from Afghanistan?
    Mr. Preston. Although there will come a point when al Qaeda, the 
Taliban, and associated forces have been so degraded and dismantled 
that the United States is no longer be in an ongoing armed conflict, 
the end of the U.S. combat role in Afghanistan will not necessarily 
mark that point. However, it does draw attention to the duration of the 
conflict with al Qaeda and continuing authority to counter terrorist 
threats post conflict. The President has invited engagement with 
Congress on the future of the AUMF. If confirmed, I look forward to 
participating in that discussion.

    18. Senator Kaine. Mr. Preston, does the President have the 
authority needed to conduct operations ongoing anywhere else in the 
world and, if not, should he come to Congress to get such an authority 
on a case-by-case basis?
    Mr. Preston. It is the considered view of the Department of Defense 
that the President has adequate authority to conduct military 
operations against al Qaeda, the Taliban, and associated forces. 
Consistent with the AUMF, the authority to use military force against 
al Qaeda is not restricted geographically to ``hot'' battlefields like 
Afghanistan. Indeed, as outlined in the President's recent War Powers 
reports to Congress, such military operations have been conducted in 
Yemen and Somalia, in addition to Afghanistan. My understanding is that 
the existing authorities are believed to be adequate and appropriate 
for military operations to counter the current and immediately 
foreseeable threat. Although the President has the authority to respond 
as necessary to new threats, I believe the President would consult with 
Congress to determine if additional authority is appropriate.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                           international law
    19. Senator Inhofe. Mr. Preston, if a proposed action by DOD is 
fully in compliance with U.S. law but there is a question of whether 
the proposed action is permitted under international law, customary 
international law, or international law principles, does this ambiguity 
affect or negate the ability of DOD to carry out the proposed action?
    Mr. Preston. My understanding is that the United States complies 
with all applicable international law when it uses military force in a 
foreign country. Any question in this regard should be resolved if at 
all possible, and any remaining ambiguity should be brought to the 
attention of the decisionmaker. If confirmed, I would work closely with 
my colleagues, including the Legal Counsel to the Chairman of the Joint 
Chiefs of Staff and counsel for the other national security agencies, 
to ensure that U.S. military operations abroad comply with both U.S. 
domestic and applicable international law.

                    authorized for the use of force
    20. Senator Inhofe. Mr. Preston, does the AUMF apply to groups 
which formed after the events of September 11, 2001?
    Mr. Preston. The AUMF applies to ``those nations, organizations or 
persons [the President] determines planned, authorized, committed, or 
aided the terrorist attacks that occurred on September 11, 2001, or 
harbored such organizations or persons.''
    A group that formed after the events of September 11, 2001, may be 
within the scope of the AUMF if the group is an organized, armed group 
that has entered the fight alongside al Qaeda and it is a co-
belligerent with al Qaeda in hostilities against the United States or 
its coalition partners. The Executive branch refers to such groups as 
``associated forces'' of al Qaeda, and this interpretation of the AUMF 
to reach ``associated forces'' has been supported by the courts and 
Congress.

    21. Senator Inhofe. Mr. Preston, does the AUMF only apply to those 
groups which only believe in al Qaeda's ideology?
    Mr. Preston. The AUMF applies to al Qaeda, the Taliban, and 
associated forces. The AUMF does not apply to groups solely because 
they are ideologically aligned with al Qaeda. Instead, to be an 
associated force, the group must be an organized, armed group that has 
entered the fight alongside al Qaeda and a co-belligerent with al Qaeda 
in hostilities against the United States and its coalition partners.

    22. Senator Inhofe. Mr. Preston, does the AUMF apply to groups 
which support al Qaeda's ideology and have taken violent action, but 
not against the United States, and the group has not received tangible 
support from al Qaeda?
    Mr. Preston. The determination of whether a group is an associated 
force turns on whether the group has entered the fight alongside al 
Qaeda and is engaged in hostilities against the United States or its 
coalition partners. Such a determination is necessarily dependent on 
specific facts and circumstances.

    23. Senator Inhofe. Mr. Preston, do you foresee a time in which the 
administration will support modifying the AUMF?
    Mr. Preston. In his recent speech at National Defense University, 
the President invited engagement with Congress in efforts to refine, 
and ultimately repeal, the AUMF.

                        guantanamo bay detainees
    24. Senator Inhofe. Mr. Preston, if we were to close Guantanamo Bay 
and transfer the detainees to the United States for trial in civilian 
court would we not have to provide Miranda rights advice and warnings 
to the detainees thereby greatly reducing our ability to collect 
intelligence from them?
    Mr. Preston. While I have not focused on this issue in the 
performance of my current duties, my understanding is as follows. 
Transferring detainees to the United States for prosecution would not 
be expected to reduce our ability to collect valuable intelligence. 
Most of the detainees held at Guantanamo Bay have been in U.S. custody 
for at least 10 years, so there has already been significant 
opportunity for intelligence collection. There is also no requirement 
to provide Miranda warnings prior to intelligence questioning if 
statements derived from that questioning are not used in a criminal 
proceeding. Furthermore, a long and growing list of terrorism suspects 
who have been prosecuted in our Federal courts--to include Najibullah 
Zazi, Faisal Shahzad, David Headley, and Umar Faruq Abdulmutallab--have 
provided extremely valuable intelligence while they were held by law 
enforcement before trial. The prospect of a long prison sentence has 
led many hardened terrorists to cooperate with our intelligence 
professionals.

                    new counterterrorism procedures
    25. Senator Inhofe. Mr. Preston, during the Vietnam war some 
criticized the layers of bureaucracy which obstructed the timely 
authorization for an attack on legitimate military targets. In the 
current conflict, as in the Vietnam war, targets of opportunity can 
come and go in a moment's notice. Therefore, won't the new procedures 
articulated in the administration's Fact Sheet: U.S. Policy Standards 
and Procedures for the Use of Force in Counterterrorism Operations 
Outside the United States and Areas if Active Hostilities, complicate 
and add to the length of time required to target an overseas, non-U.S. 
citizen member of al Qaeda?
    Mr. Preston. I agree that agility and timeliness are important 
attributes in a decisionmaking process for approving military targets 
and authorizing military action against such targets. My understanding 
is that the policy standards and procedures announced in May of this 
year were developed in close consultation with the departments and 
agencies with national security responsibilities, including 
specifically civilian and military leaders responsible for military 
operations abroad, and with the objective of having a decisionmaking 
process that would be practically workable and yield timely decisions. 
In addition, the policy standards and procedures include a reservation 
by the President permitting action to be taken in extraordinary 
circumstances.

    26. Senator Inhofe. Mr. Preston, will these additional layers of 
bureaucracy not lead to targets of opportunity being missed?
    Mr. Preston. As noted, the policy standards and procedures were 
developed with the objective of having a decisionmaking process that 
would be practically workable and yield timely decisions. In addition, 
risk in this regard should be mitigated by the reservation by the 
President permitting a departure from otherwise applicable standards 
and procedures in extraordinary circumstances.

    27. Senator Inhofe. Mr. Preston, do these policies unnecessarily 
obstruct our ability to fight the war?
    Mr. Preston. As noted, the policy standards and procedures were 
developed in close consultation with the departments and agencies with 
national security responsibilities, including specifically civilian and 
military leaders responsible for military operations abroad. I would 
defer to those leaders on this question, and I do not believe the 
policy would have been adopted if those leaders believed it would 
unnecessarily obstruct our ability to fight the war.

    28. Senator Inhofe. Mr. Preston, it appears the administration has 
implemented special procedures to address its concerns that U.S. 
citizens who are members of al Qaeda or its affiliates should still be 
afforded a level of due process review before lethal force is taken 
pursuant to the AUMF of 2001. These procedures were outlined by 
Attorney General Eric Holder in his address at Northwestern Law School 
in 2012. Though this appears to be a sensible approach regarding U.S. 
citizens, it now appears, as articulated in President Obama's May 2013 
speech, that the administration will use a similar review before 
targeting terrorists who are non-U.S. citizens and are located outside 
areas of active hostilities. Does this create a situation in which 
overseas terrorists are provided with similar constitutional 
protections as overseas U.S. citizens who have taken up arms against 
their own country?
    Mr. Preston. In his recent speech at National Defense University, 
the President noted that the targeting of a U.S. citizen raises 
constitutional issues that are not present in other actions. The 
President also described a threshold for taking lethal action outside 
areas of active hostilities that applies regardless of whether the 
terrorist target is a U.S. citizen. I understand that this threshold--
and the rest of the policy standards and procedures announced at the 
time of the President's speech--have been instituted as a matter of 
policy. To the best of my knowledge, neither the threshold, nor the 
other standards and procedures constitutes or reflects any legal 
judgment or intent to extend Due Process or any other rights to foreign 
nationals abroad.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                              drone policy
    29. Senator Ayotte. Mr. Preston, based on your current role as 
General Counsel for the CIA, from a perspective of how best to protect 
our country and go after those who want to kill Americans, what are the 
advantages and disadvantages of shifting most or all drone attacks from 
the CIA to DOD?
    Mr. Preston. With reference to this question and the two questions 
that follow, I could not comment in this setting on any intelligence 
activities.
    I understand that attacking America's enemies in armed conflict is 
a traditional competency of the U.S. military and that the U.S. 
military has extensive experience in the use of remotely piloted 
aircraft to conduct attacks during armed conflict. The appropriate role 
of the Department of Defense in operating remotely piloted aircraft, 
weighing advantages and disadvantages, is essentially a policy decision 
for the President to make. If confirmed, my focus with respect to 
military operations using remotely piloted aircraft will be on the 
legal basis for such operations and compliance with applicable law in 
conducting such operations.

    30. Senator Ayotte. Mr. Preston, will drone attacks operated by DOD 
confront more legal constraints?
    Mr. Preston. The use of military force against the Nation's 
enemies, whether by remotely piloted aircraft or other means, is 
subject to the Constitution and U.S. laws, to the law of war, and to 
the direction and control of the President and the Secretary of 
Defense. I am aware that the U.S. military uses remotely piloted 
aircraft to attack terrorists consistent with all applicable law and, 
if confirmed, I would review such operations for compliance with all 
applicable law.

    31. Senator Ayotte. Mr. Preston, will fewer drone attacks be 
conducted because of additional legal constraints?
    Mr. Preston. The number of attacks by the U.S. military, whether 
using remotely piloted aircraft or by other means, depends on a variety 
of factors, circumstances and judgments, such that it would be 
difficult to isolate the impact, if any, of legal constraints on that 
number.

                            detainee policy
    32. Senator Ayotte. Mr. Preston, President Obama has sought to 
close Naval Station, Guantanamo Bay and has refused to put new 
detainees there, despite the repeated testimony of our military leaders 
that a designated detention facility for the long-term detention and 
interrogation of foreign terrorists would be very helpful. This refusal 
has put our military leaders in a difficult and dangerous situation. 
The lack of a designated long-term detention facility has forced our 
military to use sub-standard, ad-hoc workarounds as they did in the 
case of Abdul Kadir Warsame. If we captured Ayman al Zawahiri tonight, 
can you tell me where we would detain him for long-term Law of War 
detention and interrogation?
    Mr. Preston. First a determination would have to be made as to 
whether or not he should be held in military custody for interrogation. 
Eventually, a determination would have to be made as to disposition, 
whether it be prosecution in Federal court, trial by military 
commission or law of war detention long term. The appropriate place of 
detention would depend on those determinations. At the President's 
direction, the Department is in the process of identifying a secure 
facility in the United States for holding military commissions. There 
is also an outstanding indictment against al Zawahiri.

    33. Senator Ayotte. Mr. Preston, in your opinion, are the detainees 
held at Naval Station, Guantanamo Bay being treated in a professional 
and humane manner, which is compliant with U.S. law?
    Mr. Preston. In 2009, a review was conducted to ensure that the 
treatment of Guantanamo detainees fully complied with U.S. domestic and 
international law. My understanding is that that review found that the 
detainees were being treated in a professional and humane manner that 
was fully consistent with all applicable law. To the best of my 
knowledge, that remains the case today.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                        national security agency
    34. Senator Lee. Mr. Preston, the National Security Agency (NSA) is 
under the jurisdiction of DOD. As the General Counsel for DOD, you will 
have a large amount of influence over the programs at NSA that have 
recently been in the news for collecting metadata on millions of 
Americans in large databases. I am concerned that this information 
might be used for purposes not originally contemplated when the 
databases were created, not necessarily by this administration but in 
the future, which may endanger the liberties of Americans. Do you 
believe that at some point the collection and aggregation of metadata 
implicates constitutional concerns?
    Mr. Preston. Whether or at what point the collection and 
aggregation of metadata regarding U.S. persons by the U.S. Government 
implicates constitutional concerns is a question of great importance 
and complexity. While the Supreme Court's decision in Smith v. Maryland 
is cited for the proposition that there is no protected privacy 
interest in business records of this sort, I understand that some may 
have doubts about the applicability of that decision in this context. 
If confirmed, I expect to play an active role in any further 
consideration of this issue, together with the appropriate attorneys at 
the Department of Justice.

    35. Senator Lee. Mr. Preston, what limiting practices do you 
believe should guide the Government in determining the types and amount 
of information it can collect about Americans?
    Mr. Preston. Current law and policy strike a balance between 
protecting the national security of our country and protecting the 
constitutional rights of our citizens, and it is imperative that the 
intelligence activities of the U.S. Government, particularly any 
collection of information about U.S. persons, strictly adhere to all 
applicable prohibitions and limitations aimed at safeguarding privacy 
and civil liberties. Executive Order (EO) 12333, as amended, directs 
U.S. Government departments and agencies to use all means, consistent 
with applicable Federal law and this order, and with full consideration 
of the rights of U.S. persons, to obtain reliable intelligence 
information to protect the United States and its interests. EO 12333 
provides that ``[t]he U.S. Government has a solemn obligation, and 
shall continue in the conduct of intelligence activities under this 
order, to protect fully the legal rights of all U.S. persons, including 
freedoms, civil liberties, and privacy rights guaranteed by Federal 
law.'' Intelligence Community elements are authorized to collect, 
retain, or disseminate information concerning U.S. persons only in 
accordance with procedures established by the head of the Intelligence 
Community element concerned or by the head of a department containing 
such element and approved by the Attorney General. Intelligence 
Community elements are required to use the least intrusive collection 
techniques feasible within the United States or directed against U.S. 
persons abroad. Such techniques as electronic surveillance, unconsented 
physical searches, mail surveillance, physical surveillance, or 
monitoring devices may be used only in accordance with procedures 
established by the head of the Intelligence Community element concerned 
or the head of a department containing such element and approved by the 
Attorney General, after consultation with the Director of National 
Intelligence. Such procedures shall protect constitutional and other 
legal rights and limit use of such information to lawful governmental 
purposes.
    The Department of Defense has implemented EO 12333 in procedures 
approved by the Attorney General. The purpose of these procedures is to 
enable the DOD intelligence components to accomplish their missions 
effectively while protecting the constitutional rights and privacy of 
U.S. persons. The DOD intelligence components may collect information 
that identifies a U.S. person only if it is necessary to conduct a 
function assigned to the collecting component and only if the 
information falls within a specified category (e.g., the information is 
obtained with the consent of the U.S. person concerned, is publicly 
available, or is foreign intelligence or counterintelligence).

                                 drones
    36. Senator Lee. Mr. Preston, do you believe that the Constitution 
allows for the U.S. Government to target an American citizen on foreign 
soil with a drone if they are suspected of engaging in terrorist 
activity and are perceived to be an imminent threat?
    Mr. Preston. Citizenship does not confer immunity on one who takes 
up arms against our country. However, it is critically important to 
respect the constitutional rights of American citizens, even those who 
may be plotting against the United States. The requirements of Due 
Process and the circumstances in which the U.S. Government could 
lawfully target an enemy belligerent/terrorist operator known to be a 
U.S. person--whether using a remotely piloted aircraft or by other 
means--were outlined in the speech by the Attorney General in March of 
last year and are discussed in some detail in the Department of Justice 
white paper that has been released. In addition, the policy standards 
and procedures announced in May of this year require that if the United 
States considers an operation against a terrorist identified as a U.S. 
person, the Department of Justice will conduct an additional legal 
analysis to ensure that such action may be conducted against the 
individual consistent with the Constitution and laws of the United 
States.

    37. Senator Lee. Mr. Preston, how do you define imminent threat?
    Mr. Preston. Imminent threat is a concept long known in the law and 
in practice as relates to the use of military force, but also a concept 
that has evolved with the emergence of non-state actors planning and 
executing terrorist attacks with tactics foreign to conventional 
warfare. This is not the adversary of old, amassing forces on the 
border, with troops in uniform and arms unconcealed, in advance of an 
invasion, nor is it an adversary that pays any heed to the law of war, 
instead hiding among and intentionally targeting innocent civilians.
    In the current context, imminent threat would encompass those 
engaged in planning, approving or carrying out violent attacks against 
the United States. Additional considerations would include the window 
of opportunity to act, the chance of reducing collateral harm to 
civilians, and the likelihood of heading off future disastrous attacks. 
In any given instance, the determination whether a threat is imminent 
is based on an assessment of all facts and circumstances known at the 
time.

                               detention
    38. Senator Lee. Mr. Preston, do you believe the Constitution 
permits the Government to apprehend a U.S. citizen on American soil and 
detain that individual indefinitely in a military detainment facility?
    Mr. Preston. I understand that the law is unsettled on this 
question. As a matter of policy, the President has declared that the 
U.S. Government ``will not authorize the indefinite military detention 
without trial of American citizens'' and further stated that ``doing so 
would break with our most important traditions and values as a 
Nation.''

                               war powers
    39. Senator Lee. Mr. Preston, did you support the President's 
decision to use military force in Libya in 2011?
    Mr. Preston. As General Counsel of the CIA, I had no role in the 
decision to use military force in Libya in 2011. To the best of my 
recollection, I did not participate in the substantive discussions 
concerning the use of military force preceding the President's 
decision. That said, I do not wish to suggest that I did not support 
the decision once made. If confirmed, I expect to be actively involved 
in the consideration of any contemplated use of military force in a 
foreign country in the future.

    40. Senator Lee. Mr. Preston, do you believe that he had the proper 
authority to do so, and do you believe that the President needs 
authorization from Congress to arm rebels in Syria?
    Mr. Preston. With respect Libya, I had no role, as CIA General 
Counsel, in addressing the authority to use military force, under U.S. 
domestic law or international law, and I do not recall having any 
material involvement in those discussions. As I understand it, the 
President acted in Libya to protect U.S. national interests and prevent 
a massacre. On March 21, 2011, in his report to Congress about the use 
of military force in Libya consistent with the War Powers Resolution, 
the President explained that the use of military force in Libya served 
important U.S. interests in preventing instability in the Middle East 
and preserving the credibility and effectiveness of the United Nations 
Security Council. Although U.S. strikes in Libya exceeded 60 days, my 
understanding is that the administration concluded, given that the risk 
to U.S. forces was low and the mission and use of force limited, the 
term ``hostilities'' did not apply and, therefore, continuing 
operations were consistent with the War Powers Resolution. I understand 
that U.S. and NATO operations in Libya had a basis in international law 
by virtue of U.N. Security Council resolutions under Chapter VII of the 
U.N. Charter.
    With respect to Syria, all U.S. military operations must be 
authorized under U.S. domestic law. Without an authorization from 
Congress, the President could have authority as Commander in Chief and 
Chief Executive to order military action, depending on the particular 
facts and circumstances. There are, however, significant constitutional 
and statutory limitations on the scope and duration of military 
operations that the President may order in the absence of congressional 
authorization.

    41. Senator Lee. Mr. Preston, do you believe that the current AUMF 
from 2001 needs to be updated or changed at this point? If so, how?
    Mr. Preston. It is the considered view of the Department of Defense 
that the President has adequate authority to conduct military 
operations against al Qaeda, the Taliban, and associated forces. My 
understanding is that the existing authorities are believed to be 
adequate and appropriate for military operations to counter the current 
and immediately foreseeable threat. The President has invited 
engagement with Congress on the future of the AUMF. If confirmed, I 
look forward to participating in that discussion.
                                 ______
                                 
          Additional Questions Submitted by Senator Mark Udall
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
                                 ______
                                 
    [The nomination reference of Hon. Stephen W. Preston 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 11, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Stephen Woolman Preston, of the District of Columbia, to be General 
Counsel of theDepartment of Defense, vice Jeh Charles Johnson, 
resigned.
                                 ______
                                 
    [The biographical sketch of Hon. Stephen W. Preston, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Hon. Stephen W. Preston
Education:
    Yale University

        <bullet> September 1975-May 1979
        <bullet> Bachelor of Arts Degree awarded May 1979

    Trinity College, University of Dublin

        <bullet> September 1979-May 1980
        <bullet> Graduate Diploma awarded May 1980

    Harvard University

        <bullet> September 1980-June 1983
        <bullet> Juris Doctor Degree awarded June 1983
Employment record:
    Central Intelligence Agency

        <bullet> General Counsel
        <bullet> July 2009-present

    Wilmer Cutler Pickering Hale and Dorr LLP

        <bullet> Partner
        <bullet> March 2001-June 2009

    Department ofthe Navy

        <bullet> General Counsel
        <bullet> September 1998-November 2000

    U.S. Department of Justice

        <bullet> Deputy Assistant Attorney General, Civil Division
        <bullet> September 1995-September 1998

    Department of Defense

        <bullet> Principal Deputy General Counsel
        <bullet> Deputy General Counsel (Legal Counsel)
        <bullet> Consultant
        <bullet> August 1993-September 1995

    Wilmer, Cutler & Pickering

        <bullet> Partner
        <bullet> Associate
        <bullet> January 1986-August 1993

    Center for Law in the Public Interest

        <bullet> Visiting Fellow
        <bullet> September 1984-December 1985

    Chambers of Hon. Phyllis A Kravitch, U.S. Court of Appeals for the 
Eleventh Circuit, Savannah, GA

        <bullet> Law Clerk
        <bullet> August 1983-July 1984
Honors and awards:
    Central Intelligence Agency Distinguished Intelligence Medal (2012)
    National Intelligence Distinguished Service Medal (2012)
    Central Intelligence Agency Director's Award (2011)
    Central Intelligence Agency Director's Award (2010)
    Department of Defense Medal for Distinguished Public Service, 
bronze palm in lieu of second award (2000)
    Department of the Navy Distinguished Public Service Award (2000)
    Department of Defense Medal for Distinguished Public Service (1995)
    Resolution, Navy-Marine Corps Court of Military Review (1988)
    Honoree, Women's Legal Defense Fund (1987)
    J.D., magna cum laude, Harvard University (1983)
    Editor, Harvard Law Review (1982-1983)
    Graduate Diploma, with First Class Honors, University of Dublin 
(1980)
    B.A., summa cum laude, Yale University (1979)
    Phi Eta Kappa (1979)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Hon. Stephen 
W. Preston in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Stephen Woolman Preston.

    2. Position to which nominated:
    General Counsel of the Department of Defense.

    3. Date of nomination:
    June 11, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 30, 1957; Atlanta, GA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married.

    7. Names and ages of children:
    Two children.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    1980-1983, Harvard University, J.D., June 1983
    1979-1980, Trinity College, University of Dublin, Graduate Diploma, 
May 1980
    1975-1979, Yale University, B.A., May 1979
    1971-1975, The Lovett School, High School Diploma, June 1975

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2009-Present, General Counsel, Central Intelligence Agency
    2001-2009, Partner, Wilmer Cutler Pickering Hale and Dorr LLC

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    2005, Member, Independent Panel to Review Legal Services in the 
Department of Defense
    1998-2000, General Counsel, Department of the Navy
    1995-1998, Deputy Assistant Attorney General, Civil Division, U.S. 
Department of Justice
    1993-1995, Principal Deputy General Counsel Deputy General Counsel 
(Legal Counsel), Consultant, Department of Defense
    1983-1984, Law Clerk, Chambers of Hon. Phyllis A. Kravitch, U.S. 
Court of Appeals for the Eleventh Circuit, Savannah, GA

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Member, Bartram Ridge Development LLC
    Trustee, Family Trust I
    Trustee, Family Trust II

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    All Souls Memorial Episcopal Church
    American Bar Association
    American Bar Foundation
    Council on Foreign Relations District of Columbia Bar
    Harvard Club of Washington, DC.
    International Association for the Study of Irish Literatures
    Kalorama Citizens Association
    Kennedy Center Membership Program
    Metropolitan Club of Washington, DC.
    Naval Historical Foundation
    Navy League of the United States
    Phi Beta Kappa
    Smithsonian Institution Resident Associate Program
    Saint Anthony Hall
    The Elizabethan Club of Yale University
    U.S. Navy Memorial
    U.S. Naval Institute
    Yale Club of Washington, DC

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Barack Obama Presidential Campaign--canvassing activity (2008).
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Barack Obama Presidential Campaign--contribution of $2,300 (2008)
    Michael Bennet Senatorial Campaign--contribution of $500 (2009)
    Michael Signer Virginia Lieutenant Governor Campaign--contribution 
of $250 (2009)
    Deval Patrick Gubernatorial Campaign--contribution of $500 (2010)

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Phi Beta Kappa (1979)
    B.A., summa cum laude, Yale University (1979)
    Graduate Diploma, with First Class Honors, University of Dublin 
(1980)
    Editor, Harvard Law Review (1982-1983)
    J.D., magna cum laude, Harvard University (1983) Honoree, Women's 
Legal Defense Fund (1987)
    Resolution, Navy-Marine Corps Court of Military Review (1988)
    Department of Defense Medal for Distinguished Public Service (1995)
    Department of Defense Medal for Distinguished Public Service, 
bronze palm in lieu of second award (2000)
    Department of the Navy Distinguished Public Service Award (2000)
    Central Intelligence Agency Director's Award (2010)
    Central Intelligence Agency Director's Award (2011)
    Central Intelligence Agency Distinguished Intelligence Medal (2012)
    National Intelligence Distinguished Service Medal (2012)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Author, ``CIA and the Rule of Law,'' 6 J. Nat'l Security L. & Pol'y 
1 (2012)
    Co-author, ``CFIUS and Foreign Investment'' in Homeland Security 
Legal and Policy Issues, ABA Publication (2009)
    Co-author, ``National Security Versus Business'' in The European 
Lawyer (April 2008)
    Co-author, ``The CFIUS Review Process: A Regime in Flux'' presented 
at The Foreign Investment and National Security Act of 2007: Navigating 
the Regulations, ABA Conference (April 4, 2008)
    Co-author, ``When Will Security Squelch a Foreign Investment Deal'' 
in Executive Counsel (March/April 2008)
    Co-author, ``Many Transnational Deals Now Face a Security Review'' 
in Executive Counsel (January/February 2006)
    Co-author, Legal Services in the Department of Defense: Advancing 
Productive Relationships, DOD Report (September 15, 2005)

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Speaker, CIA and the Rule of Law, Harvard Law School (April 10, 
2012) (drawn from informal remarks initially delivered at Columbia Law 
School in October 2011)

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Stephen W. Preston
    This 22nd day of July, 2013.

    [The nomination of Hon. Stephen W. Preston was reported to 
the Senate by Chairman Levin on July 30, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 16, 2013.]
                              ----------                              

    [Prepared questions submitted to Hon. Jon T. Rymer by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
These reforms have also improved cooperation between the Services and 
the combatant commanders in the strategic planning process, in the 
development of requirements, in joint training and education, and in 
the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act has strengthened our Armed Forces 
by promoting joint operability, increasing readiness, and creating a 
higher standard of warfighting efficiency. I am unaware of the need for 
any modifications to this act at this time. If confirmed, I will notify 
Congress if the Office of Inspector General identifies the need for 
modifications to the act.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Please see response above.
                             relationships
    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of Defense.
    Answer. Section 8(c) of the Inspector General (IG) Act of 1978, as 
amended (the IG Act) states that the IG shall ``be the principal 
adviser to the Secretary of Defense for matters relating to the 
prevention and detection of fraud, waste, and abuse in the programs and 
operations of the Department . . . '' If confirmed, I will seek to 
maintain a strong and effective relationship with the Secretary that 
enables me to carry out my statutory duties with the independence 
required under the IG Act, while enabling the Secretary to exercise his 
statutory supervisory authority.
    Question. The Deputy Secretary of Defense.
    Answer. Section 3(a) of the IG Act states that ``each IG shall 
report to and be under the general supervision of the head of the 
establishment involved or, to the extent such authority is delegated, 
the officer next in rank below such head.'' DOD Directive 5106.01, 
dated April 10, 2012, states that ``the IG of the DOD shall report to 
and be under the general supervision of the Secretary of Defense and 
the Deputy Secretary of Defense . . . '' Accordingly, if confirmed, my 
relationship with the Deputy Secretary of Defense will be similar to my 
relationship with the Secretary of Defense.
    Question. The Under Secretary of Defense (Comptroller/Chief 
Financial Officer).
    Answer. If confirmed, I will work with the USD(C/CFO) to formulate 
the IG's portion of the annual President's budget for submission to 
Office of the Secretary of Defense (OSD) and Office of Management and 
Budget (OMB), as well as request required resources to conduct the IG's 
mission. I will work with the USD(C/CFO) on areas of concern within the 
financial management arena which have been a longstanding major 
management challenge for the Department. I will conduct and supervise 
audits, investigations, and inspections relating to the programs and 
operations of the establishment in order to promote economy, 
efficiency, and effectiveness.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics (AT&L).
    Answer. I have been advised that the office of the DOD IG has also 
identified acquisition processes and contract management as a major 
management challenges for DOD. It is therefore essential for the IG to 
maintain an effective working relationship with the USD(AT&L). If 
confirmed, I anticipate working closely with the Under Secretary 
concerning the allocation of IG resources in the acquisition area, and 
how best to implement audit recommendations pertaining to acquisition 
processes. As IG, I would also recommend policies, in coordination with 
the USD(AT&L) and the USD(Comptroller), to ensure that audit oversight 
of contractor activities and financial management are coordinated and 
carried out in an efficient manner to prevent duplication.
    Question. The Assistant Secretaries of Defense.
    Answer. I will work with the various Assistant Secretaries of 
Defense in managing challenges faced by the Department.
    Question. The General Counsel of the Department of Defense.
    Answer. If confirmed, I will work with the General Counsel of DOD 
who serves as the Chief Legal Officer of DOD. I have been advised that 
an Office of General Counsel within the Office of Inspector General was 
established outside of the authority, direction and control of the 
General Counsel of DOD on September 23, 2008. I believe that the 
establishment of this independent Office of Counsel ensures that the IG 
receives independent legal advice and is in accordance with the 
provisions of the National Defense Authorization Act (NDAA) of 2009 and 
the IG Reform Act of 2008.
    Question. The Director of Operational Test and Evaluation (DOT&E).
    Answer. I have been advised that the IG and the DOT&E have a common 
interest in ensuring that equipment and weapons systems provided to the 
warfighter perform effectively and as planned. If confirmed, I would 
expect to consult as appropriate with the Director concerning the 
initiation of oversight efforts in these areas.
    Question. The Director of Cost Assessment and Program Evaluation.
    Answer. I am told that the IG and the Director of Cost Assessment 
and Program Evaluation will have a common interest in ensuring that 
acquisitions made by the Department undergo cost assessments and 
program evaluations. I will seek to establish a cooperative working 
relationship with this office.
    Question. The Inspectors General of the Military Departments, 
Defense Agencies, and the Joint Staff.
    Answer. Section 8(c)(2) of the IG Act states that the IG of DOD 
``shall . . . initiate, conduct, and supervise such audits and 
investigations in DOD (including the military departments) as the IG 
considers appropriate . . . '' Section 8(c)(9) adds that the IG ``shall 
. . . give particular regard to the activities of the internal audit, 
inspection, and investigative units of the military departments with a 
view toward avoiding duplication and ensuring effective coordination 
and cooperation . . .'' If confirmed, I will ensure that the DOD IG 
coordinates and avoids duplicative efforts. As I understand it, the DOD 
oversight community uses internal coordination mechanisms to deconflict 
potential duplicative efforts. In addition, DOD directives govern 
certain programs in which the IGs of the military departments 
participate.
    Question. The Inspectors General of subordinate commands.
    Answer. My relationship with the IGs of subordinate commands will 
be based on the IG role described above. If confirmed, I will work 
closely with the other DOD IGs to carry out applicable policies and 
guidance; avoid duplication, overlapping, and gaps; and work to build a 
strong team.
    Question. The Criminal Investigative Services of the Military 
Departments.
    Answer. Under the IG Act, the IG has the authority to initiate, 
conduct, and supervise criminal investigations relating to any and all 
programs and operations of the DOD. In addition, the IG is statutorily 
mandated to develop policy, monitor and evaluate program performance, 
and provide guidance regarding all criminal investigative programs 
within the Department. It is my understanding that the DOD IG works 
frequently in close coordination with the Military Criminal 
Investigative Organizations (MCIOs) on joint investigations. If 
confirmed, I will work closely with each of the MCIOs to ensure that 
investigative resources are used effectively.
    Question. The Audit Agencies of the Military Departments.
    Answer. Section 4(a) of the IG Act establishes broad jurisdiction 
for the IG to conduct audits and investigations within DOD, and section 
8(c)(2) states that the IG ``shall . . . initiate, conduct, and 
supervise such audits and investigations in the DOD (including the 
military departments) as the IG considers appropriate.'' If confirmed, 
I will work with the audit agencies of the military departments to 
ensure audit resources are used effectively within the Department.
    Question. The Defense Contract Audit Agency.
    Answer. If confirmed, I will work with DCAA, as prescribed in the 
IG Act. Although DCAA reports to the Under Secretary of Defense 
(Comptroller), it operates under audit policies established by the IG.
    Question. The Defense Acquisition Regulatory Council.
    Answer. As I understand it, the DOD IG regularly provides comments 
to the Defense Acquisition Regulatory Council on proposed changes to 
the Defense Federal Acquisition System and also recommends changes as a 
result of DOD IG work. If confirmed, I would expect to continue these 
practices.
    Question. The Director of Defense Procurement and Acquisition 
Policy.
    Answer. It is my understanding that the Director of Defense 
Procurement and Acquisition Policy is responsible for oversight of a 
large segment of the DOD's acquisition and contracting operations and, 
accordingly, is a major recipient of reports provided by the IG. If 
confirmed, I would expect to continue the current practice of working 
with the Director.
    Question. The Comptroller General and the Government Accountability 
Office.
    Answer. It is my understanding that the DOD IG works very closely 
with the Comptroller General and the Government Accountability Office 
(GAO) to coordinate planned and ongoing audits and inspections to avoid 
any duplication of efforts. I also understand that the DOD IG/GAO 
liaison office serves as the central liaison between GAO and DOD 
management during GAO reviews of DOD programs and activities. I have 
served on both the yellow book and blue book advisory committees at 
GAO. If confirmed, I would work to maintain these cooperative 
relationships with the Comptroller General and GAO.
    Question. The Special Inspector General for Afghanistan 
Reconstruction.
    Answer. It is my understanding that the DOD IG scope of oversight 
authority encompasses all DOD funded operations and activities in 
Afghanistan and elsewhere, while the SIGAR focuses his oversight effort 
only on funds designated for Afghanistan reconstruction. If confirmed, 
and in keeping with the IG Act, I will ensure that the DOD IG 
collaborates effectively with the SIGAR to ensure that we protect the 
public expenditures in Afghanistan for which we have oversight.
    Question. The Council of Inspectors General on Integrity and 
Efficiency.
    Answer. On October 14, 2008, the President signed Public Law 110-
409, which established the Council of Inspectors General on Integrity 
and Efficiency (CIGIE), replacing the PCIE. As the Inspector General of 
the Federal Deposit Insurance Corporation I serve as Chair of the Audit 
Committee and as a Member the CIGIE Executive Council since 2008. If 
confirmed, I plan to continue to be a very active participant in the 
CIGIE
    Question. The Defense Council on Integrity and Efficiency.
    Answer. Sections 2 and 3 of the DCIE Charter state that, in 
accordance with section 2(2) of the IG Act, the DOD IG, who is the DCIE 
Chairman, is responsible to provide ``leadership and coordination and 
recommend policies for activities designed (A) to promote economy, 
efficiency, and effectiveness in the administration of, and (B) to 
prevent and detect fraud and abuse in such programs and operations.'' 
If confirmed, I would organize meetings with the established members of 
the DCIE to discuss issues of common interest and reinforce close 
working relationships within the DOD oversight community.
    Question. The Office of Management and Budget.
    Answer. As chairman of the Audit Committee of CIGIE, I have worked 
with OMB on numerous occasions on matters of accounting and audit 
policy. If confirmed, I will ensure that this office works with the 
Office of Management and Budget regarding budget and policy issues. In 
addition, the Deputy Director for Management of the OMB serves as the 
Executive Chairperson of the CIGIE.
                             qualifications
    Question. Section 3 of the Inspector General Act of 1978 provides 
that Inspectors General shall be appointed on the basis of their 
``integrity and demonstrated ability in accounting, auditing, financial 
analysis, law, management analysis, public administration, or 
investigations.''
    What background and experience do you possess that you believe 
qualifies you to perform the duties of the Department of Defense 
Inspector General (DOD IG), particularly in the area of oversight, 
audit and investigation?
    Answer. Since July 5 2006, I have served as the Inspector General 
of the Federal Deposit Insurance Corporation (FDIC). I am a Certified 
Internal Auditor and a Certified Government Auditing Professional. I am 
currently serving as the Chair of the Audit Committee of the Council of 
the Inspectors General on Integrity and Efficiency and as Vice Chair of 
the Council of Inspectors General on Financial Oversight. I am a member 
of the Comptroller General's Advisory Council on Government Auditing 
Standards and Chair of the Green Book Advisory Council. I am also a 
member of the Federal Accounting Standards Advisory Board's Accounting 
and Auditing Policy Committee. As the IG at the FDIC, I have led the 
team that has ensured efficiency, effectiveness, and accountability of 
the policies, programs and performance at the FDIC.
    I have served for over 30 years in the active and Reserve 
components of the U.S. Army and I am a graduate of the U.S. Army's 
Inspector General School. I worked for 7 years in consulting and 
internal auditing at a major accounting firm and I have over 15 years 
of experience as a senior manager in the the banking industry.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. If confirmed, I plan to meet with a broad cross-section of 
officials and personnel within the Department of Defense, including 
members of the Armed Forces here and overseas, to listen to their 
concerns and identify issues that might merit action by the Office of 
the Inspector General. Also, I plan to spend time listening to the 
concerns of the Members of Congress and their staffs. If confirmed, I 
also intend to continue to work closely with members of the CIGIE. I 
also intend to spend time with all elements of the DOD IG office to 
learn and benefit from their insights. I will maintain my professional 
certifications as an auditor and complete all continuing professional 
education requirement.
    Question. Based on your background and experience, are there any 
changes that you would recommend with respect to the current 
organization or responsibilities of the DOD IG?
    Answer. It would be premature to offer any recommendations for 
change in these areas until I have had an opportunity to conduct the 
necessary thorough evaluations of the current DOD IG organization and 
policies and procedures.
               major challenges, problems, and priorities
    Question. In your view, what are the major challenges and problems 
facing the next DOD IG?
    Answer. The DOD IG identified the following seven management and 
performance challenges facing the Department in fiscal year 2012:

    1.  Financial Management
    2.  Acquisition Processes and Contract Management
    3.  Joint Warfighting and Readiness
    4.  Information Assurance, Security, and Privacy
    5.  Health Care
    6.  Equipping and Training Iraq and Afghan Security Forces
    7.  The Nuclear Enterprise

    Additionally, the issue of sexual assaults and suicide prevention 
within the Armed Forces are serious issues that demand the attention of 
the DOD IG. In the context of meeting these challenges, the OIG will 
need to continue to provide extensive oversight in support of the 
Department's efforts to address these challenges. It is difficult as a 
nominee to identify specific problems I will confront if confirmed. 
However, if confirmed, it will be my top priority to learn what 
challenges and problems the DOD IG office needs to address and to 
ensure the adequacy of resources required to accomplish its mission.
    Question. If you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. If confirmed, I will focus audit, investigative, and 
inspection efforts on the above discussed management challenges. I will 
also work with senior DOD civilian and military officials and Congress 
to identify emerging issues that the Department faces.
    Question. If you are confirmed, what broad priorities would you 
establish in terms of issues which must be addressed by the DOD IG?
    Answer. It is difficult as a nominee to formulate priorities 
because I have not had access to the full range of information and 
considerations that should inform them, however, I do plan to make sure 
that the office stays aware that the foundations of an effective OIG 
are independence and professional standards. If confirmed, I look 
forward to consulting with senior officials of the Department of 
Defense, DOD IG, and with Congress, in establishing broad priorities.
    Question. If you are confirmed, what changes, if any, would you 
expect to make in the organization, structure, and staffing of the 
Office of Inspector General?
    Answer. It would be premature to offer any recommendations for 
change in these areas until I have had an adequate opportunity to 
observe the operation of the office and conduct the necessary 
evaluations.
                                 duties
    Question. What is your understanding of the duties and functions of 
the DOD IG?
    Answer. The duties and functions of the DOD IG are specified in 
sections 3, 4, 5, 7, and 8 of the IG Act. Additional duties and 
responsibilities of the IG are specified in DOD Directive 5106.01, 
which was signed by the Deputy Secretary of Defense on April 20, 2012.
    By statute, the DOD IG conducts and supervises audits and 
investigations relating to the programs and operations of DOD. The DOD 
IG also provides leadership and coordination, and recommends policy, 
for activities designed to: (1) promote economy, efficiency, and 
effectiveness in the administration of DOD programs and operations; and 
(2) combat fraud, waste, and abuse. In addition, the IG is responsible 
for keeping both the Secretary of Defense and Congress fully and 
currently informed about problems and deficiencies in defense programs, 
the need for corrective action, and the status of such action.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If confirmed, I expect the Secretary of Defense will 
prescribe for me the full range of duties and functions set forth in 
two DOD publications: DOD Directive 5100.1, ``Functions of the 
Department of Defense and Its Major Components,'' and DOD Directive 
5106.01, ``Inspector General of the Department of Defense.'' These 
publications delineate that the DOD IG provides staff assistance and 
advice in accordance with the responsibilities specified in the IG Act. 
Significantly, these publications reinforce that the IG remains an 
independent and objective unit within DOD. If confirmed, I will consult 
directly with the Secretary to identify specific areas of concern and 
emphasis.
    Question. Section 2 of the Inspector General Act of 1978 states 
that its purpose is to create independent and objective units to 
conduct and supervise audits and investigations; to provide leadership 
and coordination and recommend policies designed to promote economy, 
efficiency, and effectiveness; to prevent and detect fraud and abuse; 
and to provide a means for keeping Congress and agency heads fully and 
currently informed about problems and deficiencies relating to the 
administration of programs and operations and the necessity for and 
progress of corrective action.
    Are you committed to maintaining the independence of the DOD IG, as 
set forth in the Inspector General statute?
    Answer. Yes. If confirmed, I will maintain the independence of the 
IG consistent with the provisions of the IG Act.
    Question. Are you committed to keeping the Committee on Armed 
Services ``fully and currently informed,'' and, if so, what steps will 
you take, if confirmed, to ensure that this responsibility is carried 
out?
    Answer. Yes. If confirmed, in accordance with section 2(3) of the 
IG Act, I will keep the Committee on Armed Services ``fully and 
currently informed about problems and deficiencies relating to the 
administration of such programs and operations and the necessity for 
and progress of corrective action.'' I will do so through the 
dissemination of IG products such as the Semiannual Report to Congress 
and reports on audits and inspections. In addition, I will provide 
briefings for Members and staff, and testimony at hearings, when 
requested, with the intent of maintaining a close relationship.
    Section 3 of the Inspector General Act of 1978 provides that the 
head of an agency, shall exercise ``general supervision'' over an IG, 
but shall not ``prevent or prohibit the Inspector General from 
initiating, carrying out, or completing any audit or investigation, or 
from issuing any subpoena during the course of any audit or 
investigation.''
    What is your understanding of the supervisory authority of the 
Secretary of Defense over the DOD IG with respect to audits and 
investigations, in view of the independence provided by sections 2 and 
3?
    Answer. Section 2 of the IG Act creates independent and objective 
units to provide a means for keeping the head of the establishment and 
Congress fully and currently informed about problems and deficiencies 
relating to the administration of such programs and operations and the 
necessity for and progress of corrective action.
    Section 3 states that each IG shall report to and be under the 
general supervision of the head of the establishment involved or, to 
the extent such authority is delegated, to the office next in rank 
below such head, but shall not report, or be subject to supervision by, 
any other officer of such establishment. Moreover, neither the head of 
the establishment nor the office next in rank shall prevent or prohibit 
the IG from initiating, carrying out, or completing any audit or 
investigation, or from issuing any subpoena during the course of any 
audit or investigation.
    Question. If confirmed, what action would you take if a senior 
official of the Department sought to prevent you from ``initiating, 
carrying out, or completing'' any audit or investigation within the 
jurisdiction of the Office of the DOD IG?
    Answer. If the action was taken outside the authority of the 
Secretary of Defense in section 8 of the IG Act, I would notify the 
Secretary and request his assistance in ensuring compliance with the IG 
Act by the senior official involved. Failure to resolve the issue, 
would, in my view, constitute a ``particularly serious or flagrant 
problem, abuse, or deficiency'' under section 5(d) of the IG Act. Under 
this section, the IG is required to report the matter to the head of 
the establishment, who is then required to transmit the IG's report to 
Congress within 7 days.
    Question. Section 8 of the Inspector General Act of 1978 states 
that the DOD IG shall ``be under the authority, direction, and control 
of the Secretary of Defense with respect to certain audits or 
investigations which require access to information concerning sensitive 
operational plans, intelligence matters, counterintelligence matters, 
ongoing criminal investigations by other administrative units of the 
Department of Defense related to national security, or other matters, 
the disclosure of which, would constitute a serious threat to national 
security.
    What is your understanding of the procedures in place to affect the 
authority and control of the Secretary of Defense over matters 
delineated in section 8 of the act?
    Answer. To my knowledge, the procedure in place is to follow the IG 
Act. Under 8(b)(1) or 8(b)(2) of the IG Act, the Secretary has the 
``authority to stop any investigation, audit, or issuance of subpoenas, 
if the Secretary determines that such a prohibition is necessary to 
preserve the national security interests of the United States.'' I am 
informed that this provision has never been exercised. However, in the 
event that the Secretary exercises this authority, I would submit an 
appropriate statement within 30 days to this committee and other 
appropriate committees of Congress, as required under section 8(b)(3).
    Question. What is your understanding of the extent to which the 
Inspector General has, as a matter of practice, initiated and conducted 
audits or investigations covered by section 8 differently from other 
audits or investigations?
    Answer. It is my understanding that the practice of the DOD IG with 
respect to the initiation and conduct of audits and investigations 
covered by section 8 is the same as for other audits and 
investigations.
    Question. What changes, if any, do you believe are needed in the 
practices of the DOD IG for initiating and conducting audits or 
investigations covered by section 8?
    Answer. None to my knowledge.
    Question. Sections 4 and 8 of the Inspector General Act of 1978 set 
forth various duties and responsibilities of Inspectors General beyond 
the conduct of audits and investigations.
    What is your understanding of the supervisory authority exercised 
by the Secretary of Defense with regard to these issues?
    Answer. Beyond the conduct of audits and investigations, section 4 
of the IG Act directs the IG to ``review existing and proposed 
legislation and regulations'' and make related recommendations in 
semiannual reports; recommend policies to promote economy and 
efficiency in the administration of Department programs and operations, 
and to prevent and detect fraud and abuse; keep the Secretary of 
Defense and Congress fully and currently informed about fraud and other 
serious problems, abuses, and deficiencies; recommend corrective 
actions for such problems, abuses, and deficiencies; and report on the 
progress made in implementing such corrective actions. Section 8(c)(1) 
adds that the IG shall ``be the principal advisor to the Secretary of 
Defense for matters relating to the prevention and detection of fraud, 
waste, and abuse in the programs and operations of the Department.'' 
The duties and responsibilities specified in sections 4 and 8 come 
within the general supervisory authority of the Secretary of Defense 
established under section 3(a).
                              independence
    Question. The DOD IG must ensure that the independence of the 
Office of the Inspector General is maintained, that investigations are 
unbiased, particularly those involving senior military and civilian 
officials, and promptly and thoroughly completed, and that the highest 
standards of ethical conduct are maintained.
    Under what circumstances, if any, do you believe it would be 
appropriate for the DOD IG to consult with officials in the Office of 
the Secretary of Defense (or other DOD officials outside the Office of 
the Inspector General) before issuing a report, regarding the findings 
and recommendations in the report?
    Answer. In regards to audits and inspections, I understand it is 
the current practice for the IG to offer officials in the OSD, or other 
DOD officials, an opportunity to comment before issuing a report to 
ensure that the information in the report is factually accurate and to 
resolve or acknowledge disagreements on conclusions, findings, and 
recommendations. This is not the practice with criminal investigations. 
Additionally, it is not appropriate to discuss ongoing criminal or 
administrative investigations.
    Question. To the extent that you believe such consultation is 
appropriate, what steps, if any, do you believe the Inspector General 
should take to keep a record of the consultation and record the results 
in the text of the report?
    Answer. I believe it is necessary to consult with all parties to 
gather the facts to develop findings and recommendations. The facts 
that are relevant should be included in the text of the report, and a 
written record of all interviews and consultations should be maintained 
in the working papers.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for senior officials to request that the DOD IG not 
investigate or review a particular matter?
    Answer. Under section 8 of the IG Act, the Secretary of Defense has 
the authority to prohibit the IG from initiating, carrying out, or 
completing any audit or investigation. That authority may be exercised 
when the audit or investigation requires access to information 
concerning: sensitive operational plans, intelligence matters, 
counterintelligence matters, ongoing criminal investigations by other 
administrative units of DOD related to national security, or other 
matters the disclosure of which would constitute a serious threat to 
national security. As noted previously, the Secretary of Defense has 
never exercised his authority under section 8.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for senior officials to request that the DOD IG not 
issue a report on a particular matter?
    Answer. No one, other than the Secretary of Defense under the 
provisions delineated in Section 8 of the IG Act, has the authority to 
ask the DOD IG not to issue a report on a particular matter.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for senior officials to request that the DOD IG alter 
findings, recommendations, or other pertinent material in a report on a 
particular matter?
    Answer. In the course of conducting audits and inspections, the IG 
practice is to offer officials in the OSD, or other DOD officials, an 
opportunity to comment before issuing a report to ensure that the 
information in the report is factually accurate and to resolve or 
acknowledge disagreements on conclusions, findings, and 
recommendations. Additionally, in cases where an administrative 
investigation substantiates allegations involving a senior DOD 
official, the senior official is given an opportunity to comment on 
findings and conclusions as part of fairness and due process. Those 
comments may require that we alter the findings and are considered 
before a final report is issued. However, for criminal investigations, 
it is not appropriate to discuss the results of ongoing investigations. 
The final decision on the content of reports rests with the IG.
    Question. If confirmed, how would you react to a request, which you 
believed to be inappropriate, to not investigate a particular matter, 
not issue a report on a particular matter, or alter findings, 
recommendations, or other pertinent material in a report on a 
particular matter?
    Answer. With respect to the initiation or completion of an audit or 
investigation, if the request was inappropriate and made outside the 
authority of the Secretary of Defense in section 8 of the IG Act, I 
would reject the request. If and when necessary, I would notify the 
Secretary and request his assistance in ensuring compliance with the IG 
Act by the senior official involved. Failure to resolve the issue, 
would, in my view, constitute a ``particularly serious or flagrant 
problem, abuse or deficiency'' under section 5(d) of the IG Act. Under 
this section, the IG is required to report the matter to the head of 
the establishment, who is then required to transmit the IG's report to 
Congress. (Additionally, the IG Act requires the Secretary to notify 
Congress if he exercises his authority under section 8(b) (1) or (2))
                         congressional requests
    Question. The Office of Inspector General frequently receives 
requests from congressional committees and Members of Congress for 
audits and investigation of matters of public interest.
    What is your understanding of the manner in which the Office of 
Inspector General handles such requests?
    Answer. The DOD IG receives many requests from congressional 
committees and Members of Congress for oversight reviews, but adheres 
to the same principles of independence in responding to those requests.
    Question. If confirmed, will you ensure that the Office of 
Inspector General continues to respond to congressional requests for 
audits or investigations in a manner consistent with past practice?
    Answer. Recognizing Congress' oversight role and in keeping with 
the DOD and DOD IG policy, I would continue to make appropriate 
information available promptly and to cooperate fully with Members of 
Congress and congressional committees and their staffs.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the Office of the Inspector General to redact the 
contents of any information contained in a report it provides to 
Congress?
    Answer. Consistent with the Freedom of Information Act and Privacy 
Act, it is the practice of the DOD IG to provide unredacted copies of 
reports to oversight committees of Congress. Additional releases, 
including those to the public, are redacted in accordance with 
applicable laws.
    Question. In past years, a number of audits and investigations 
conducted by the DOD IG in response to congressional requests have 
taken excessively long periods of time to complete. In some cases, the 
individuals who have been the subject of such investigations have left 
office by the time the DOD IG has completed its work.
    What is your view of the timeliness and responsiveness of the DOD 
IG's recent work in response to congressional requests?
    Answer. I am unable to speak to the timeliness of specific DOD IG 
reports. In general, I strongly believe that IG findings must be 
provided to both management and to Congress in a timely manner while 
professional standards for report production are maintained.
    Question. What steps, if any, would you take, if confirmed, to 
ensure the timeliness and responsiveness of such audits and 
investigations?
    Answer. If confirmed, I will review the timeliness of DOD IG 
responses to congressional requests and require improvements if 
necessary.
                     senior official investigations
    Question. The Office of the DOD IG plays a key role in the 
investigation of allegations of misconduct by senior officers and 
civilian employees of the Department of Defense. The Committee on Armed 
Services has a particular interest in investigations concerning senior 
officials who are subject to Senate confirmation, and relies upon the 
DOD IG, as well as the Office of the Secretary of Defense, to ensure 
that these investigations are accurate, complete, and accomplished in a 
timely manner.
    If confirmed, what steps will you take to ensure that the 
investigations relating to senior officials are completed in a timely 
and thorough manner and that the results of investigations are promptly 
provided to this committee?
    Answer. If confirmed, I will emphasize the importance of conducting 
timely, thorough, and accurate investigations. I will continue efforts 
to promote efficiencies through training and streamlining of 
investigative processes. I will ensure that cases with Congressional or 
Secretariat interest--especially flag officers pending Senate 
confirmation--receive additional resources and attention. I will obtain 
regular updates from my staff on senior official investigations and 
will ensure that all results of investigations are promptly provided to 
the Under Secretary of Defense (Personnel and Readiness) and the 
Services for review and consideration in the confirmation process.
    Question. Do you believe that the current allocation of 
responsibilities between the DOD IG and the inspectors general of the 
military departments is appropriate to ensure fair and impartial 
investigations?
    Answer. If confirmed, I will ensure that the allocation of 
responsibilities between the DOD IG and the Service IGs is appropriate 
to ensure fair and impartial investigations. The DOD IG customarily 
asserts investigative jurisdiction in senior official cases in which 
allegations cross service lines, the subject outranks the Service IG, 
or the Service IG encounters an impediment to independence. I will 
insist my office continue prompt and thorough oversight reviews of the 
Service IG reports of investigation. Vigilant oversight instills public 
confidence in the integrity and accountability of DOD Leadership.
    Question. What additional steps, if any, do you think the DOD IG 
should take to ensure that investigations carried out by the inspectors 
general of the military departments are accurate and complete?
    Answer. If confirmed, I will ensure my office continues the 
vigorous oversight reviews of the Service IG reports of investigation 
to ensure accuracy and completeness. The quality of the Service IG 
investigations is enhanced by meetings with the Service IGs, semiannual 
training symposiums, and daily interaction between OIG and Service IG 
senior official investigators. These efforts strengthen professional 
relationships, reinforce best practices, and improve the timeliness and 
quality of investigative work. I will not hesitate to highlight 
investigative deficiencies in Service IG reports and will offer 
assistance or assume investigative jurisdiction when appropriate.
    Question. At what point in an investigation and under what criteria 
would you initiate action to ensure that a ``flag,'' or suspension on 
favorable personnel action, is placed on a military officer?
    Answer. If confirmed, I will promptly notify the Service IG of the 
initiation of a senior official investigation. If a senior official has 
a pending nomination or Senate confirmation, I will also notify the 
Under Secretary of Defense (Personnel and Readiness). The components 
are responsible to ensure the senior officials are ``flagged'' and not 
eligible for favorable actions. Upon receipt of an allegation against a 
senior official, my office will promptly determine whether the 
allegation is credible; that is, whether the alleged conduct violates 
an established standard and whether the allegation includes sufficient 
detail. If the allegation is determined to be credible, I will take 
steps to ensure an investigation is initiated and make the appropriate 
notifications.
   resources and authorities of the dod ig's office and investigators
    Question. Do you believe that the DOD IG's office has sufficient 
resources (in personnel and dollars) to carry out its audit and 
investigative responsibilities?
    Answer. If confirmed, I will assess the adequacy of the resources 
available to the DOD IG. I would make it a priority to ensure that the 
DOD IG's office has sufficient resources to carry out its audit and 
investigative responsibilities.
    Question. If confirmed, will you communicate any concerns that you 
may have about the adequacy of resources available to the Office of 
Inspector General to Congress and this committee?
    Answer. If confirmed, I will.
    Question. Some Federal agencies have reacted to limited Inspector 
General resources by using contractors to perform some audit and 
investigative functions.
    What is your understanding of the DOD IG's role in determining 
whether the use of contractor resources to perform audit or 
investigative functions is appropriate?
    Answer. For the audit function, the IG Act, section 4(b)(1)(B) 
establishes the authority of each IG to establish guidelines for 
determining when it shall be appropriate to use non-Federal auditors. 
In addition, section 4(b)(1)(C) of the IG Act states that the IG shall 
take appropriate steps to ensure that any work performed by non-Federal 
auditors complies with the standards established by the Comptroller 
General.
    Question. With regard to the criminal investigative function, it is 
considered inherently governmental and therefore contractors are only 
utilized in very limited investigative support roles.
    Under what circumstances, if any, do you believe that the use of 
contractor resources to perform such functions would be appropriate?
    Answer. It is my understanding that DOD Instruction 7600.02 
establishes guidance on when it is permissible to use contractor 
resources to perform audit functions. It specifically permits DOD 
components to contract for audit services when applicable expertise is 
unavailable, if augmentation of the audit staff is necessary to execute 
the annual audit plan, or because temporary audit assistance is 
required to meet audit reporting requirements mandated by Public Law or 
DOD regulation. However, the instruction includes an approval process 
to ensure the appropriate use of non-Federal auditors and that they 
comply with the Government Auditing Standards issued by the Comptroller 
General of the United States.
    Question. In recent years, the DOD IG has sought and obtained 
increased authority to issue subpoenas, carry weapons, and make 
arrests.
    Do you believe that the authorities of the Office of Inspector 
General and its agents are adequate in these areas, or would you 
recommend further changes in the law?
    Answer. In general, I believe the authorities provided by the 
Inspector General Act, as amended, are adequate. If confirmed, I will 
review those authorities as they relate to the mission of the DOD IG.
                  dod financial accounting and audits
    Question. The performance of mandatory statutory duties, such as 
the performance of financial audits, has consumed a growing share of 
the resources of the Inspector General's office, crowding out other 
important audit priorities.
    What is your view of the relative priority of financial audits, and 
the resources that should be devoted to such audits?
    Answer. Financial audits will continue to be a high priority 
consistent with the President's Initiatives, the Secretary of Defense's 
top priorities, the Chief Financial Officers Act of 1990, and the 
Federal Financial Management Improvement Act of 1994. As the Department 
improves audit readiness, the requirements for financial statement 
audits will increase, placing greater demand on DOD IG resources. If 
confirmed, I will work with the Department and Congress to ensure that 
the appropriate level of resources continues to be dedicated to 
financial audits. I will also seek to ensure that resources committed 
to financial audits do not come at the expense of other audit 
priorities.
    Question. What is your view of the requirements of section 1008 of 
the NDAA for Fiscal Year 2002, regarding resources directed to the 
audit of financial statements?
    Answer. Section 1008 directs the IG to significantly reduce the 
level of audit work when the Department has asserted that the financial 
statements are not reliable and do not meet accounting standards. This 
allows the IG flexibility to redirect audit resources to other areas 
within the Department. If confirmed, I will continue to work with the 
Department and Congress to ensure that the appropriate level of 
resources is dedicated to audit the Department's financial statements. 
While audit resources have been redirected to other high priority 
areas, as the level of audit readiness increases across the Department, 
there will be a need to focus more resources on those financial 
statements.
    Question. Do you see any need for legislative changes to give the 
Inspector General greater flexibility to target audit resources?
    Answer. If confirmed, I will work with the Department and Congress 
to assess whether legislation in this area is appropriate.
    Question. What is your view of the role of the DOD IG in evaluating 
and contributing to improvements made in the Department's financial 
management processes?
    Answer. The role of the DOD IG is to serve as a catalyst for 
improvements in the Department's financial management processes. That 
role should be consistent with the Department's top priorities, and 
statutory requirements. If confirmed, I will ensure that the DOD IG 
continues this vital function.
                   oversight of acquisition programs
    Question. Problems with procurement, acquisition, and the ability 
of the Department and the Military Departments to effectively oversee 
acquisition programs have called into question the capability of 
existing DOD oversight mechanisms.
    What role, if any, do you believe the Office of the Inspector 
General should play in achieving acquisition reform?
    Answer. The role of the DOD IG is to serve as a catalyst for 
improvements in the Department's acquisition processes and contract 
management. That role should be consistent with the President's 
Initiatives, the Department's top priorities, and statutory 
requirements. If confirmed, I will ensure that the DOD IG continues 
this vital function.
    Question. Over the last 15 years, the DOD IG has gone from having 
one auditor for every $500 million on contract by the Department of 
Defense to one auditor for every $2 billion on contract.
    Do you believe that the DOD IG has the resources it needs to 
conduct effective oversight over the Department's acquisition programs?
    Answer. If confirmed, ensuring that the DOD IG has the resources 
needed to conduct effective oversight over the Department's acquisition 
programs will be one of my top priorities. The men and women of our 
Armed Forces, and our Nation's taxpayers, have a right to expect that 
the funds appropriated by Congress for defense acquisitions are being 
utilized efficiently and effectively. I understand that Congress has 
supported DOD IG efforts to increase its oversight resources. It is 
essential that the IG, the Department, and Congress to work together in 
a timely way to ensure that the IG has adequate resources to conduct 
its essential oversight mission.
    Question. The DOD IG has played an important role in advising the 
Department of Defense and Congress on the sufficiency of management 
controls in the Department's acquisition programs and the impact that 
legislative and regulatory proposals could have on such management 
controls.
    How do you see the DOD IG's role in this area?
    Answer. The DOD IG has an important role in helping the Department 
to effectively and efficiently manage acquisition resources dedicated 
to the support of the Department's mission, and in accounting for the 
management of those resources to the taxpayer. If confirmed, I will 
ensure that the DOD IG continues its important advisory role.
               oversight of dod activities in afghanistan
    Question. What is your understanding of the responsibilities and 
activities of the Office of the DOD IG in investigating and preventing 
fraud, waste, and abuse in the course of Department of Defense 
operations in Afghanistan?
    Answer. The DOD IG, in accordance with its legislatively mandated 
mission, conducts audits, investigations and inspections aimed at 
identifying and preventing fraud, waste, and abuse of funds 
appropriated to the DOD for its operations in Afghanistan. I am aware 
that conducting oversight of operations and activities associated with 
an overseas contingency presents unique challenges. Nevertheless, as 
with oversight elsewhere within the Department, the purpose of these 
reviews should be to ensure our men and women in uniform are receiving 
the right equipment and support to conduct successful operations.
    I also understand that, the Defense Criminal Investigative Service, 
the law enforcement arm of the DOD IG, and its military criminal 
investigative counterparts, in particular the U.S. Army Criminal 
Investigative Command (Army CID), investigate major frauds, corruption, 
thefts, and other compromises of DOD assets in Afghanistan, and other 
countries in that theater.
    If confirmed, I will ensure that the DOD IG continues to focus 
oversight efforts to investigate and prevent fraud, waste, and abuse of 
U.S.-provided resources for reconstruction and other purposes in 
Southwest Asia, in keeping with the IG Act.
    Question. If confirmed, what changes, if any, would you plan to 
make to the DOD IG's oversight activities in Afghanistan?
    Answer. If confirmed, I would ensure that DOD IG activities in 
Southwest Asia remain a top priority. I will also assess the current 
level of oversight to ensure that adequate resources are being devoted 
to this mission and that those resources are being allocated 
appropriately.
    Question. If confirmed, what would be your goals with respect to 
the oversight, audit, and investigation of ongoing U.S. activities 
Afghanistan?
    Answer. If confirmed, my goal would be to ensure that the oversight 
provided by the DOD IG of ongoing DOD activities in Afghanistan is 
consistent with the responsibilities in the IG Act and is sufficient to 
provide assurance to Congress, the Secretary of Defense, and to the 
American taxpayer that funds supporting DOD activities are expended 
appropriately and effectively.
    Question. The Special Inspector General for Afghanistan 
Reconstruction (SIGAR) has jurisdiction over contracts for the 
reconstruction of Afghanistan. However, the SIGAR does not have primary 
jurisdiction over contracts to support our troops in Afghanistan.
    What role do you believe the DOD IG should play in the oversight, 
audit and investigation of such contracts?
    Answer. The DOD IG office should play an active role in ensuring 
stewardship of taxpayers' dollars and effective contract support for 
our troops through diligent oversight of the contracting function. This 
would include audits, inspections, and investigations, as required. I 
understand the DOD IG chairs the Southwest Asia Joint Planning Group, 
which is a forum for oversight agencies to coordinate audit efforts in 
Southwest Asia.
    Question. Do you believe that a significant on-the-ground presence 
is necessary to perform this role?
    Answer. Yes. While many oversight activities can be conducted from 
the continental United States, effective oversight requires being on 
site to assess conditions, examine documents and talk to witnesses and 
sources. I am aware that the DOD IG currently maintains offices in 
Afghanistan and Qatar. As the draw down in U.S. troops in Afghanistan 
proceeds, we must continually assess personnel needs based on the 
nature and scope of DOD operations and adjust our on-the-ground 
presence as appropriate.
    Question. What is the relationship of the DOD IG to the SIGAR?
    Answer. See response to the previous section regarding 
``Relationships''.
                              intelligence
    Question. What is the role of the DOD IG with regard to 
intelligence activities within DOD?
    Answer. Responsibilities and functions of the Inspector General as 
outlined in DOD Directive 5106.1, ``Inspector General of the Department 
of Defense (IG, DOD),'' include the responsibility to audit, evaluate, 
monitor, and review the programs, policies, procedures, and functions 
of the DOD Intelligence Community to ensure that intelligence resources 
are properly managed. I am informed that the Inspector General, through 
the Deputy Inspector General for Intelligence and Special Program 
Assessments, has responsibility for oversight of DOD intelligence 
activities and components to include all DOD Components conducting 
intelligence activities, including the National Security Agency/Central 
Security Service (NSA/CSS), the Defense Intelligence Agency (DIA), the 
Military Department intelligence and counterintelligence activities, 
and other intelligence and counterintelligence organizations, staffs, 
and offices, or elements thereof, when used for foreign intelligence or 
counterintelligence purposes. Other organizations and components under 
the Inspector General's oversight include the Office of the Under 
Secretary of Defense for Intelligence (USD (I)), the National 
Reconnaissance Office (NRO), and the National Geospatial-Intelligence 
Agency (NGA).
    The DOD IG performs an oversight and coordination role through the 
Joint Intelligence Coordination Working Group (JIOCG). The JIOCG is a 
DOD working group chaired by the Deputy Inspector General for 
Intelligence and Special Program Assessments and includes 
representatives from the Service audit agencies, military department 
IGs, and the IGs of the Defense Intelligence Agencies. The primary goal 
of the JIOCG is to avoid duplication of effort and enhance coordination 
and cooperation among IGs and Auditors General inside the DOD, and 
promote information-sharing among IGs whose functions include audits, 
inspections, evaluations, or investigations of their respective 
departments and agencies.
    Question. What is the relationship of the DOD IG to the Special 
Assistant to the Secretary of Defense for Intelligence Oversight?
    Answer. DOD Directive 5106.01 requires that intelligence-related 
actions be coordinated, as appropriate, with the Assistant to the 
Secretary of Defense (Intelligence Oversight) (ATSD(IO)) to determine 
respective areas of responsibility in accordance with DOD Directive 
5148.11, ``assistant to the Secretary of Defense for Intelligence 
Oversight,'' dated April 24, 2013. (DOD Directive 5148.11 contains 
similar language for the ATSD(IO) to coordinate with the IG, as 
appropriate.) I am advised that the ATSD(IO) is a charter member of the 
JIOCG, and that the IG has a long history of coordination and 
cooperation with the ATSD(IO).
    Question. What is the relationship of the DOD IG to the Inspector 
General of the Office of the Director of National Intelligence?
    Answer. I understand that the DOD IG's primary relationship with 
the Intelligence Community IG (IC IG) involves participation in the 
Intelligence Community (IC) IG Forum. The IC IG Forum promotes 
information-sharing among the IGs of the departments and agencies of 
the IC whose functions include audits, inspections/evaluations, or 
investigations of their respective departments and agencies. The IC IG 
Forum also strives to avoid duplication of effort and enhance effective 
coordination and cooperation among IC IGs. The IC IG chairs the IC IG 
Forum.
    In addition to the IC IG Forum relationship, the DOD IG 
participates in various projects and initiatives undertaken by the IC 
IG. The IC IG also coordinates with the DOD IG on all ongoing projects 
relating to DOD intelligence organizations and activities. The IC IG is 
an Ex-Officio member of the Joint Intelligence Oversight Coordination 
Group (JIOCG). The JIOCG is a chartered organization which is the DOD 
focal point for inspectors and auditors general collaboration and 
deconfliction of project and planning activities.
    Question. What is the role of the DOD IG with respect to detainee 
matters?
    Answer. The DOD IG has statutory responsibility for oversight that 
extends to detainee and interrogation matters. It is my understanding 
that the DOD IG prepares a summary report every 6 months on 
investigations of detainee abuse conducted by the MCIOs which is 
provided to the office of the Under Secretary of Defense for Policy.
    Question. What is the role of the DOD IG with respect to 
interrogation matters?
    Answer. Please see my answer to the previous question.
                        whistleblower protection
    Question. What is your understanding of the role played by the DOD 
IG in investigating complaints of reprisal against members of the 
military, DOD civilian employees, and DOD contractor employees, who 
``blow the whistle'' on alleged fraud, waste, and abuse?
    Answer. It is my understanding that the DOD IG maintains a robust 
whistleblower protection program that seeks to ensure that 
whistleblowers may report fraud, waste, and abuse within the programs 
and operations of the Department of Defense without fear of reprisal. 
The DOD IG is responsible for investigating or overseeing 
investigations conducted by the DOD component inspectors general, 
regarding allegations of whistleblower reprisal made by members of the 
Armed Forces, appropriated and nonappropriated fund DOD civilian 
employees, and DOD contractor/subcontractor employees. Disclosures 
brought to light by whistleblowers are critical to DOD IG's mission of 
providing independent, relevant, and timely oversight of the 
Department.
    Question. What is your understanding of the relationship between 
the DOD IG and the Office of Special Counsel in the protection of DOD 
civilian employee whistleblowers?
    Answer. The Office of Special Counsel is a partner with the 
Inspector General in the protection of DOD's civilian appropriated-fund 
employees. OSC receives and has primary jurisdiction to investigate a 
majority of the civilian whistleblower cases across the Federal 
Government, pursuant to the Whistleblower Protection Act (WPA), title 
5, U.S.C., section 2302. Under the authority of the Inspector General 
Act, DOD IG provides an alternate means by which DOD civilian 
appropriated-fund employees may seek protection analogous to protection 
from reprisal provided by the WPA.
    Question. What is your understanding of the legal standards for 
substantiating a whistleblower claim of reprisal by a member of the 
military, a DOD civilian employee, or a DOD contractor employee?
    Answer. In general, whistleblower reprisal is proven when the 
evidence establishes that a protected communication or disclosure was a 
factor in the decision to take, threaten to take, or withhold a 
personnel action (or a security clearance determination), unless 
evidence establishes that the action would have been taken, threatened 
or withheld absent the protected communication or disclosure. There are 
statute-specific variations though, including the standard of proof for 
showing whether the action would have been taken, threatened or 
withheld absent the protected communication or disclosure. Among the 
statutes and programs administered by DOD IG, the appropriated-fund 
civilian and contractor/subcontractor investigations require clear and 
convincing evidence, whereas military and nonappropriated-fund 
investigations require a preponderance of the evidence to prove that 
the action would have been taken anyway.
    Question. What is your understanding of the changes made by section 
827 of the NDAA for Fiscal Year 2013, regarding DOD contractor employee 
whistleblowers?
    Answer. The NDAA for Fiscal Year 2013, signed by President Obama on 
January 2, 2013, contained numerous enhancements to the existing law 
protecting Defense contractor employees from whistleblower reprisal, 
the most significant of which were:

        <bullet> Extending coverage to employees of Defense 
        subcontractors and, as noted in earlier answers, elevating the 
        agency's burden of proof in rebuttal to clear and convincing 
        evidence.
        <bullet> Expanding the scope of what constitutes a protected 
        disclosure and to whom such disclosures can be made.
        <bullet> Prohibiting actions taken by the employer ``even if it 
        is undertaken at the request of a Department or administration 
        official'' (unless the request takes the form of a 
        nondiscretionary directive and is within the authority of the 
        Department official making the request).

    Question. Do you see the need for any further legislative changes 
to ensure that members of the military, DOD civilian employees, and DOD 
contractor employees are appropriately protected from reprisal for 
whistleblowing?
    Answer. I am aware that significant enhancements to whistleblower 
protection, including the Whistleblower Protection Enhancement Act of 
2012 and the NDAA for Fiscal Year 2013 amendments to the statute 
protecting Defense contractor employee whistleblowers, have recently 
been enacted. Prior to recommending further legislation, if confirmed, 
I would assess the effectiveness of these changes and work with 
Congress and others to identify potential gaps in the protections 
afforded to whistleblowers.
    Question. What level of priority will you give, if confirmed, to 
the DOD IG's whistleblower protection responsibilities?
    Answer. Whistleblowing, and the protection of the sources for our 
investigators, auditors, inspectors and evaluators, will be one of my 
top priorities. Whistleblowers perform an important public service--
often at great professional and personal risk--by exposing fraud, 
waste, and abuse within the programs and operations of the Department. 
If confirmed, I will work to ensure that the DOD IG plays a leading 
role in creating an environment in the Department where whistleblowers 
can disclose wrongdoing without fear of retribution.
                     general counsel to the dod ig
    Question. What is your understanding of the history and purpose of 
section 907 of the NDAA for Fiscal Year 2009, regarding the General 
Counsel to the DOD IG?
    Answer. Section 907 provided for a General Counsel to the DOD IG 
who would serve at the discretion of the IG, report exclusively to the 
IG, and be independent of the Office of General Counsel, Department of 
Defense. I am familiar with and fully support such an arrangement for 
an IG to receive independent legal advice.
    Question. What is your understanding of the role played by the 
General Counsel to the DOD IG with regard to completed investigations?
    Answer. With regard to administrative investigations, attorneys in 
the Office of General Counsel (OGC) to the DOD IG perform legal 
sufficiency reviews of senior official and reprisal reports of 
investigation prior to the final report being submitted to the 
Inspector General (IG) or Deputy Inspector General for Administrative 
Investigations (DIG AI), as appropriate, for final approval. In 
ensuring administrative investigations are legally sufficient, OGC 
attorneys determine whether the relevant legal or regulatory standards 
are identified and applied; evidence of record appears complete, 
credible, and supports the findings of fact by the appropriate standard 
of proof; findings of fact support the conclusions reached; and the 
report is generally understandable.
    Question. If confirmed, how would you address disputes between the 
General Counsel to the DOD IG and a DOD IG investigative team as to 
findings of fact and the appropriate weight to be given to such facts 
in a completed investigation?
    Answer. My understanding is that OGC and the Office of DIG AI have 
a commendable working relationship and have established procedures for 
resolving any disagreements related to sufficiency of investigations. 
Cases where disagreements cannot be resolved between OGC and DIG AI are 
rare and typically involve matters that impact the outcome of the 
investigation or supportability of findings and conclusions. Matters 
unresolved at the directorate level are elevated to the DIG AI, who 
consults further with the attorney advisor or the General Counsel to 
resolve the disagreement. If disputes remain unresolved on cases which 
require OGC coordination prior to PDIG or IG review/signature, the DIG 
AI notifies the PDIG or IG of the disagreement and provides additional 
information as requested. The parties involved continue to address the 
disagreement, aided by any feedback that the PDIG or IG chooses to 
provide. I intend to continue that resolution process and provide my 
advice and direction based on the evidence of the particular case.
                audit oversight review and report cards
    Question. In recent years, one congressional office has prepared an 
annual report entitled an ``Audit Oversight Review and Report Card.'' 
These reports have been highly critical of the performance of the audit 
functions of the DOD IG.
    Are you familiar with these reports?
    Answer. Yes
    Question. What is your view of the findings and conclusions of 
these reports?
    Answer. The reports presented some valid concerns and opportunities 
for improvement in the audit organization at the DOD IG.
    Question. Are there additional steps that you believe the DOD IG 
should take to address the findings and conclusions of these reports?
    Answer. As an auditor by profession, audit selection and audit 
quality are very important to me. It is my understanding that there has 
been improvement over the past few years. If confirmed, I will work 
with the audit organization to ensure that it continues to meet the 
mission of producing timely, relevant, and accurate audit products.
    Question. If confirmed, will you review the organizational 
structure of the DOD IG, with the objective of streamlining the 
organization, reducing duplication or redundancy, and increasing the 
performance of the organization?
    Answer. If confirmed, I will have the goal of having a model audit 
organization. I will ensure we conduct audits that provide return on 
investment that promote economy, efficiency, and effectiveness within 
the Department. I will also ensure the audits are carried out in an 
efficient manner to prevent duplication.
                     sexual assault investigations
    Question. In June, 2011, the GAO issued a report entitled 
``Military Justice Oversight and Better Collaboration Needed for Sexual 
Assault Investigations and Adjudications'', GAO-11-579, finding that 
the Department of Defense Inspector General has not performed its 
designated policy development and oversight responsibilities for sexual 
assault investigations. The GAO recommended that the DOD Inspector 
General, in conjunction with the Military Services, develop and 
implement (1) a policy that specifies procedures for conducting sexual 
assault investigations and (2) clear goals, objectives, and performance 
data for monitoring and evaluating the Services' sexual assault 
investigations and related training.
    What is the status of the implementation of the GAO's 
recommendations?
    Answer. In response to GAO's first recommendation the DOD IG 
developed overarching guidance which establishes policy, assigns 
responsibilities, and provides procedures for the investigation of 
adult sexual assault within DOD. This guidance is captured in DODI 
5505.18, ``Investigation of Adult Sexual Assault in the Department of 
Defense'' which was published on January 25, 2013.
    Regarding the second recommendation in June 2011, the DOD IG 
established a unit dedicated to the oversight of sexual assault and 
other violent crime investigations. The DOD IG has developed a program 
of regular and recurring oversight of sexual assault investigations and 
training. Since its establishment, the unit has evaluated both Military 
Criminal Investigative Organizations' (MCIOs') sexual assault 
investigation training and adult sexual assault investigations 
completed in 2010. These reports were published in February 2013 and 
July 2013, respectively. The unit is currently evaluating the MCIOs' 
investigations of sexual assaults of children completed in 2012, and 
DOD's compliance with the Sexual Offender Registration and Notification 
Act.
    Question. If confirmed, will you ensure vigorous oversight and 
evaluation of the Services' investigations of sexual assault and the 
related training of investigators?
    Answer. Yes, if confirmed, I will endeavor to ensure the DOD IG 
continues to provide optimum oversight and investigative and policy 
support in this critically important area. I understand that the DOD IG 
will evaluate the Department's sexual assault and other violent crime 
investigations and investigative training on a continuing basis. In the 
coming year the DOD IG intends to evaluate additional closed MCIO 
sexual assault investigations, and evaluate MCIO sexual assault victim 
interview training.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed, to appear before this committee and 
other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Inspector General of the 
Department of Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                      overpayments to contractors
    1. Senator Nelson. Mr. Rymer, there have been numerous Department 
of Defense (DOD) Inspector General (IG) reports citing contractor 
overpayments, such as Boeing overcharging for repair parts for 
helicopters (DODIG-2013-103). How do we hold contractors accountable to 
deliver products and services on time and at the agreed upon price?
    Mr. Rymer. The DOD IG can assist the Department in holding 
contractors accountable by identifying overcharges and requesting funds 
be returned for goods and services not received; recommending the 
contracting officer take immediate actions to correct the problems 
through an appropriate contract remedy, and recommending, when 
warranted by the contractor's inadequate performance, that the Military 
Department's designated official start suspension or debarment actions. 
The DOD IG also makes recommendations to DOD Senior Leadership to hold 
the contracting official and contracting officer representative 
accountable for their actions in making sure that the contractor is 
delivering the products and services on time and at the price stated in 
the contract. To obtain the maximum benefit of the recommendations that 
have been made regarding spare parts, the Department should apply 
lessons learned and operational improvement from the individual 
contracts that the DOD IG has reviewed more broadly to other contracts 
for spare parts.

    2. Senator Nelson. Mr. Rymer, are these overpayments related in any 
way to DOD's lack of auditability?
    Mr. Rymer. While these overpayments may not be directly related to 
DOD's lack of auditability, the Department's lack of effective 
processes and controls creates an environment where overpayments are 
less likely to be detected and corrected in the normal course of 
business. If the Department were auditable, they would have systems 
that talk with each other and processes that ensured that property was 
properly valued and included in the inventory management system and the 
financial statements.

    3. Senator Nelson. Mr. Rymer, why is this report classified For 
Official Use Only (FOUO)?
    Mr. Rymer. It is my understanding that the report is marked FOUO 
because it contains proprietary data protected by the Trades Secrets 
Act. Proprietary information is exempt from public disclosure pursuant 
to the Freedom of Information Act.
                                 ______
                                 
             Question Submitted by Senator Claire McCaskill
                    office of the inspector general
    4. Senator McCaskill. Mr. Rymer, the DOD Office of the Inspector 
General (DOD OIG) has been critical in efforts to rein in runaway 
spending and waste, fraud, and abuse at DOD. It has done a tremendous 
job in what can be a difficult environment to succeed in. Would you let 
me, or my staff, know if there are any tools that you believe you need 
to help you do your job more effectively?
    Mr. Rymer. If confirmed, I will review the audit, investigative and 
inspections capabilities of the DOD IG to determine if they possess the 
resources and authorities needed to provide effective oversight of the 
Department of Defense. I will promptly advise your office if additional 
authorities or capabilities are needed in order for the DOD IG to 
perform its mission independently and professionally.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III
                               dod audit
    5. Senator Manchin. Mr. Rymer, today, DOD is the only Federal 
agency that still cannot pass an audit. Along with my friend Senator 
Coburn, I am working on the Audit the Pentagon Act and think it is long 
past time for a clean audit on DOD's books. DOD accounts for almost 20 
percent of the Federal budget, but we don't know exactly where the 
money is spent. That makes absolutely no sense. If confirmed, what will 
you do from day one to root out waste and ensure DOD audits its books?
    Mr. Rymer. I share your concerns regarding DOD's inability to audit 
its books. If confirmed, I will work with the DOD IG audit staff to 
ensure that the financial management work continues to provide 
actionable recommendations that will improve the Department's financial 
management controls and reduce vulnerabilities to fraud waste and 
abuse. If confirmed, I will ensure that the DOD IG conducts audits 
focusing on identifying improper payments and that the auditors have 
the necessary data analysis software to analyze high risk areas such as 
delinquent debt, particularly related to healthcare services provided 
to DOD personnel, dependents, and veterans.

    6. Senator Manchin. Mr. Rymer, the Inspector General is absolutely 
central to DOD's audit process. What will your approach be to ensuring 
that DOD not only meets the audit standards and timetables, but also 
that the integrity of the audit process is upheld?
    Mr. Rymer. If confirmed, I will ensure that all DOD IG audit staff 
are fully trained and qualified to perform their duties. Highly 
qualified staff should have advanced degrees and/or professional 
certifications to include Certified Public Accountants (CPAs), 
Certified Internal Auditors (CIAs), Certified Fraud Examiners (CFEs), 
Certified Information Systems Auditors (CISAs), and Certified Defense 
Financial Managers (CDFMs). In addition, if confirmed, I will ensure 
the audit staff provide the appropriate oversight to CPA firms engaged 
to assist with financial statement audits. I will also ensure that the 
auditors are able to share knowledge about the Department as well as 
audit standards and best practices in performing financial statement 
audits.
                                 ______
                                 
                Questions Submitted by Senator Tim Kaine
                        military whistleblowers
    7. Senator Kaine. Mr. Rymer, do you feel that current law does 
enough to protect Active Duty whistleblowers who witness fraud, waste, 
abuse, or crime?
    Mr. Rymer. Protection of whistleblowers must be a top priority for 
the DOD IG. At this time, I am not prepared to comment definitively on 
the sufficiency of current law but I do believe that continually 
educating our military servicemembers on their rights and 
responsibilities is critical to ensuring these protections are fully 
exercised. If confirmed, this is a matter I would want to assess more 
thoroughly. I believe the DOD IG should continually evaluate 
protections for whistleblowers and suggest improvements, if necessary, 
to ensure that all of our servicemembers receive the proper protections 
for being courageous enough to come forward and report allegations of 
fraud, waste, abuse, and crime.

    8. Senator Kaine. Mr. Rymer, what else can be done to stamp out 
retaliation against those who come forward as victims or witnesses?
    Mr. Rymer. Continued outreach from the DOD IG and increased top-
down emphasis on whistleblower rights and protections within the 
Department sends the message that reporting wrongdoing--including 
reporting allegations of sexual assault--is the right thing to do, and 
that whistleblowers are protected from reprisal. I am well aware that 
even the perception of retaliation can reduce the trust and confidence 
our servicemembers and civilian employees have in the Department. If 
confirmed, I will continually review our outreach and education 
programs to ensure we are doing all we can to protect whistleblowers 
from reprisal. I would also work to ensure that investigations into 
allegations of reprisal continues to be a high priority in the Office 
of Inspector General and that all such investigations are conducted in 
a timely and thorough manner.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                               priorities
    9. Senator Inhofe. Mr. Rymer, if confirmed as the DOD Inspector 
General will you review DOD's use of scarce O&M funds for alternative 
energy programs?
    Mr. Rymer. If confirmed, I will work to ensure the DOD IG continues 
its audit efforts of the Department's programs to become more energy 
efficient--including the use of various types of alternative energy. As 
one of the largest consumers of energy in the world, the Defense 
Department spends billions of dollars each year on fuel. Becoming more 
energy efficient makes sense.

    10. Senator Inhofe. Mr. Rymer, if confirmed, will you agree to 
apply your financial and auditing expertise to thoroughly review plans 
to build a biofuel refinery in light of an April 2013 report by the 
International Energy Agency that forecasts the United States is on pace 
to become energy independent by 2030, and to report the results of your 
review to this committee?
    Mr. Rymer. If confirmed, I will ensure that the DOD IG reviews the 
various initiatives underway at the Department to become more energy 
efficient and assesses DOD's progress toward meeting its energy 
efficiency goals. As part of this effort, the DOD IG should assess the 
use of various types of alternative energies--including biofuel. My 
goal is to provide the Secretary and Congress with relevant and timely 
information that can be used to guide policy decisions on various fuel 
programs.

                  dod financial accounting and audits
    11. Senator Inhofe. Mr. Rymer and Dr. Rabern, if confirmed, what is 
your understanding of your role in finally establishing the level of 
audit readiness that is required by law?
    Mr. Rymer. The DOD IG must perform the audits required by the CFO 
Act of 1990. However, section 1008(d) of the National Defense 
Authorization Act for Fiscal Year 2002 limits the DOD Inspector General 
to performing only those audit procedures required by generally 
accepted government auditing standards that are consistent with the 
representations made by management. In practice this significantly 
curtails the audit work because most of the Department has not asserted 
that it is audit ready. It is important that other financial management 
audits conducted by the DOD IG focus on identifying the necessary 
improvements that the Department must make to reduce vulnerabilities, 
improve its financial management operations and continue to progress 
toward auditability of all the financial statements and meeting the 
auditability goals for fiscal year 2014 and 2017.

                     senior official investigations
    12. Senator Inhofe. Mr. Rymer, if confirmed, what is your 
understanding of your role in providing this committee with timely and 
accurate information concerning senior officials who are subject to 
Senate confirmation?
    Mr. Rymer. If confirmed, I will ensure that all results of 
investigations are promptly provided to Senior Management Officials in 
the Department of Defense for review and consideration in the 
confirmation process. I will also respond quickly to inquiries from the 
committee regarding pending nominations of senior officials.

    13. Senator Inhofe. Mr. Rymer, what would be your role in 
evaluating the processes within DOD and the Services to select for 
promotion and assignment to positions of responsibility, only the best 
and fully qualified, ethical, and accountable leaders?
    Mr. Rymer. I recognize the importance of providing timely and 
accurate information to DOD and the Services for use in the promotion 
and assignment process. If confirmed, I will ensure DOD IG completes 
its investigations in a timely and accurate manner, and continues its 
vigilant oversight of senior official investigations conducted by the 
Service IGs. I will promptly provide any adverse information in our 
records regarding senior officials for the Department's consideration 
during the selection and nomination process.
                                 ______
                                 
    [The nomination reference of Hon. Jon T. Rymer follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 24, 2013.
    Ordered, That the following nomination be referred sequentially to 
the Committee on Armed Services; when reported by the Committee on 
Armed Services, pursuant to an order of January 7, 2009, to be 
sequentially referred to the Committee on Homeland Security and 
Governmental Affairs for 20 calendar days:
    Jon T. Rymer, of Tennessee, to be Inspector General, Department of 
Defense, vice Gordon S. Heddell, resigned.
                                 ______
                                 
    [The biographical sketch of Hon. Jon T. Rymer, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Hon. Jon T. Rymer
Education:
    University of Tennessee

        <bullet> September 1973-June 1975
        <bullet> September 1978-June 1981
        <bullet> Bachelor of Arts Degree, Economics, awarded 1981

    University of Arkansas at Little Rock

        <bullet> September 1993-August 1996
        <bullet> Master of Business Administration Degree awarded 1996
Employment record:
    Federal Deposit Insurance Corporation

        <bullet> Inspector General
        <bullet> July 2006-Present

    U.S. Securities and Exchange Commission

        <bullet> Interim Inspector General
        <bullet> May 2012-January 2013

    Council of the Inspectors General on Integrity and Efficiency

        <bullet> Audit Committee Chair
        <bullet> August 2008-Present

    U.S. Army

        <bullet> Command Sergeant Major, U.S. Army Reserve
        <bullet> Active duty, June 1975-June 1978, November 2004-
        October 2005
        <bullet> U.S. Army Reserve June 1978-August 1992,
        <bullet> U.S. Army Reserve, U.S. Army National Guard, July 
        1997-June 2013

    KPMG LLP

        <bullet> Director, Banking Advisory Services
        <bullet> June 1997-November 2004

    Boatman's Bank of Arkansas

        <bullet> Executive Vice President
        <bullet> November 1992-January 1997

    First American National Bank of Tennessee

        <bullet> Executive Vice President
        <bullet> June 1981-November 1992
Certifications:
    Certified Government Auditing Professional
    Certified Internal Auditor
Honors and awards:
    Meritorious Service Medal with Oak Leaf Cluster
    Army Commendation Medal with two Oak Leaf Clusters
    Army Achievement Medal with three Oak Leaf Clusters
    Good Conduct Medal
    Humanitarian Service Medal
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Jon T. 
Rymer in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jon Thomas Rymer.

    2. Position to which nominated:
    Department of Defense Inspector General.

    3. Date of nomination:
    June 24, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 2, 1955; Knoxville, TN.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Debra Joanne Queen.

    7. Names and ages of children:
    Jon Thomson Rymer, age 17.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Bearden High School, Knoxville, TN, 1971-1973, diploma, 1973.
    University of Tennessee, Knoxville, TN, 1973-1975, 1978-1981, 
Bachelor Degree, 1981.
    University of Arkansas at Little Rock, 1994-1996, Master of 
Business Administration Degree, 1996.
    University of Cincinnati, 2002-2003, no degree awarded.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    June 1997 to November 2004, KPMG LLP, Chicago, IL, Cincinnati, OH, 
Director.
    June 1975 to August 1992 and July 1997 to present, U.S. Army, U.S. 
Army National Guard, and U.S. Army Reserve. Served in enlisted ranks 
from Private to Command Sergeant Major.
    July 2006 to Present, Inspector General, Federal Deposit Insurance 
Corporation, Washington, DC. Served as Interim Inspector General at 
U.S. Securities and Exchange Commission from May 2012 to January 2013.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Chairman of the Audit Committee and member of the Executive Council 
of the President's Council on Integrity and Efficiency and Council of 
Inspectors General for Integrity and Efficiency from 2008 to present.
    Member of the GAO Advisory Committee of Government Auditing 
Standards from 2009 to present.
    Member of the GAO Advisory Committee of Government Internal 
Controls Standards from March 2013 to present.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member of Institute of Internal Auditors
    National Rifle Association

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    McCain for President--three contributions totaling $750 in 2008
    Connelly for Congress--$100 - 10/16/2008
    National Republican Party--$50 - 04/02/2012
    Romney for President--$150 - 10/17/2013

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Meritorious Service Medal with Oak Leaf Cluster
    Army Commendation Medal with two Oak Leaf Clusters
    Army Achievement Medal, four Oak Leaf Clusters
    Good Conduct Medal Army Reserve Components Achievement Medal, Three 
Oak Leaf Clusters
    Humanitarian Service Medal
    National Defense Service Medal
    Ohio Commendation Medal

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    A. IG Perspectives for the FBI, 9/3/2008
    B. The FDIC IG-FDIC Accounting and Auditing Conference, 5/21/2008
    C. Meeting the Challenges of the Crisis-Association of Government 
Accountants, 7/13/2010
    D. FDIC OIG Update, AICPA, 9/2010
    E. The FDIC IG-University of Tennessee Corporate Governance 
Seminar, 10/2010

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, ifconfirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                      Jon T. Rymer.
    This 19th day of July, 2013.

    [The nomination of Hon. Jon T. Rymer was reported to the 
Senate by Chairman Levin on July 30, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 17, 2013.]
                              ----------                              

    [Prepared questions submitted to Dr. Susan J. Rabern by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. I do not see the need to modify any provisions of the 
Goldwater-Nichols Act.
duties of the assistant secretary of the navy (financial management and 
                              comptroller)
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy (Financial Management and 
Comptroller)?
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) directs and manages the financial activities of the 
Department of the Navy. This means overseeing the management of the 
annual budget, its execution, financial reporting and subsequent audit, 
as well as providing independent analysis. The office provides informed 
recommendations to the senior leadership of the Department of the Navy 
regarding the efficient and effective allocation of assets, consistent 
with the national security priorities of the President and the 
Secretary of Defense. The office provides for the development of a 
world-class financial management work force and is committed to the 
American public for the proper stewardship of the resources they 
entrust to the Department of the Navy.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have significant financial management experience in 
multiple government agencies including the Federal Bureau of 
Investigation, the U.S. Customs Service, the U.S. Agency for 
International Development and while on Active Duty in the U.S. Navy.
    Question. As Chief Financial Officer of the U.S. Agency for 
International Development, I was responsible for all financial matters 
related to the delivery of economic development and humanitarian 
assistance programs through grants, contracts, and loans to 
governmental and non-governmental organizations globally. I was 
responsible for reform and refurbishment of financial systems, 
implementing changes in the management of government expenditures, 
trust funds, and loans in over 100 appropriations.
    As Assistant Commissioner and Chief Financial Officer of the U.S. 
Customs Service, I served as the key advisor to the Commissioner on all 
matters relating financial and resource programs, construction and 
procurement. I directed the formulation, presentation and execution of 
the Customs Service budget, obligation of funds and employment 
ceilings, managed annual appropriations, revenue, procurement, real 
property and other assets in over 600 locations worldwide.
    As the Chief Financial Officer for the Federal Bureau of 
Investigation, I was the principal advisor to the Director on all 
financial matters, and responsible for all financial planning, 
programming, budgeting, investment, and contracting, establishing 
standards and procedures worldwide.
    Question. Do you believe that there are any actions that you need 
to take to enhance your ability to perform the duties of the Assistant 
Secretary of the Navy (Financial Management and Comptroller)?
    Answer. If confirmed, I will quickly identify any shortcomings in 
my knowledge regarding the many challenging issues facing the 
Department of the Navy through discussions with subject matter experts 
within the Navy and the broader Department of Defense.
                             relationships
    Question. What is your understanding of the relationship between 
the Assistant Secretary of the Navy (Financial Management and 
Comptroller) and each of the following:
    The Secretary of the Navy.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) is the principal advisor to the Secretary and Under 
Secretary of the Navy on fiscal and budgetary matters and performs such 
other duties as the Secretary or Under Secretary may prescribe.
    Question. The Under Secretary of the Navy/Chief Management Officer 
of the Navy.
    Answer. See response above.
    Question. The other Assistant Secretaries of the Navy.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) works directly with the other Assistant Secretaries of 
the Navy to ensure that the financial management activities of their 
respective organizations are supported.
    Question. The General Counsel of the Navy.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) must collaborate with the General Counsel to ensure 
all operations of the Department conform to fiscal law requirements.
    Question. The Chief of Naval Operations.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) should make certain that the Chief of Naval Operations 
has the financial support necessary to execute his statutory duties and 
responsibilities.
    Question. The Commandant of the Marine Corps.
    Answer. Likewise, the Assistant Secretary of the Navy (Financial 
Management and Comptroller) should make certain that the Commandant of 
the Marine Corps has the financial support necessary to execute his 
statutory duties and responsibilities.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) must work closely with the Under Secretary of Defense 
(Comptroller) to ensure the appropriate development and execution of 
budgetary and fiscal policies and initiatives of the President, the 
Secretary of Defense, and the Secretary of the Navy.
    Question. The Deputy Chief Management Officer of the Department of 
Defense.
    Answer. Likewise, the Assistant Secretary of the Navy (Financial 
Management and Comptroller) must work closely with the Deputy Chief 
Management Officer of the Department of Defense to ensure the 
implementation of business systems architecture and to help identify 
business process improvements.
    Question. The Assistant Secretaries for Financial Management of the 
Army and Air Force.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) must work closely with sister Service counterparts to 
ensure that decisionmaking at all levels reflects the strongest 
cooperation and collaboration (to include sharing of best practices) 
among the Military Services.
    Question. The Chief of Legislative Affairs for the Department of 
the Navy.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) should work closely with the Chief of Legislative 
Affairs to ensure that all budgetary and legislative matters are 
properly conveyed to the appropriate Members of Congress and 
committees.
                            major challenges
    Question. In your view, what are the major challenges that confront 
the Assistant Secretary of the Navy for Financial Management and 
Comptroller?
    Answer. In sum, (1) balancing the budget while ensuring 
requirements of the warfighter are met; (2) ensuring the financial 
management workforce is recruited, retained, trained and developed; (3) 
ensuring the financial statements within the Navy and Marine Corps are 
audit-ready.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Standing alone, the challenges I enumerated above are 
considerable. In the context of the constraints of the Budget Control 
Act of 2011, the challenges are even more daunting and can only be 
accomplished through close coordination with the Under Secretary of 
Defense (Comptroller), the Secretary and Under Secretary of the Navy, 
and the Navy's Service Chiefs.
    Question. What do you consider to be the most significant problems 
in the performance of the functions of the Assistant Secretary of the 
Navy for Financial Management and Comptroller?
    Answer. I am aware that the specific impacts of furlough associated 
with the Department's effort to manage the effects sequestration have 
had a negative impact on the performance and functions of the Assistant 
Secretary of the Navy for Financial Management and Comptroller.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. Specific solutions, which in turn would determine the 
timeline, must be the product of collaboration with the Office of the 
Secretary of Defense and Congress. If confirmed, I will do everything 
in my power to find solutions to the problems and/or to mitigate the 
impacts.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Navy (Financial Management and Comptroller)?
    Answer. My priorities are aligned to what I perceive as the 
Department's greatest challenges. In sum, (1) balancing the budget 
while ensuring requirements of the warfighter are met; (2) ensuring the 
financial management workforce is recruited, retained, trained and 
developed; (3) ensuring the financial statements within the Navy and 
Marine Corps are audit-ready.
         civilian and military roles in the navy budget process
    Question. What is your understanding of the division of 
responsibility between the Assistant Secretary of the Navy (Financial 
Management and Comptroller) and the senior military officers 
responsible for budget matters in Office of the Chief of Naval 
Operations and headquarters, Marine Corps, in making program and budget 
decisions, including the preparation of the Navy Program Objective 
Memorandum, the annual budget submission, and the Future Years Defense 
Program?
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) is responsible for all budget matters within the 
Department. If I am confirmed, the senior military officers, including 
the Director of the office of Budget, would serve as principal military 
advisors to me in my capacity to oversee the development of the 
Departments Program Objective Memorandum, annual budget submission, and 
Future Years Defense Program.
                financial management and accountability
    Question. DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Despite 
numerous strategies and initiatives, problems with financial management 
and data continue.
    What do you consider to be the top financial management issues that 
must be addressed by the Department of the Navy over the next 5 years?
    Answer. The top financial management issues include: (1) balancing 
the budget while ensuring requirements of the warfighter are met; (2) 
ensuring the financial management workforce is recruited, retained, 
trained and developed; (3) ensuring the financial statements within the 
Navy and Marine Corps are audit-ready.
    Question. If confirmed, how would you plan to ensure that progress 
is made toward improved financial management in the Navy?
    Answer. If confirmed, I commit to working closely with my civilian 
counterparts and military leadership within the Department of the Navy 
and the Office of the Secretary of Defense (Comptroller) to properly 
allocate resources, to improve our systems and processes, to recruit 
and retain the right workforce and to achieve auditable financial 
statements.
    Question. If confirmed, what private business practices, if any, 
would you advocate for adoption by the Department of Defense and the 
Department of the Navy?
    Answer. At this time, I am not aware of any private business 
practices that I would advocate for adoption. If confirmed, I will 
consider best financial practices from within the private sector and 
other well-run Federal or State agencies.
    Question. What are the most important performance measurements you 
would use, if confirmed, to evaluate changes in the Navy's financial 
operations to determine if its plans and initiatives are being 
implemented as intended and anticipated results are being achieved?
    Answer. The timely distribution and allocation of funds; the timely 
obligation of funds; balance of funds with the Treasury, the percentage 
of invoices that are paid in timely fashion, the amount of interest 
penalties paid, and the timeliness of financial data are all 
performance measures that I believe require close monitoring. If 
confirmed, I would track these metrics along with the scheduled 
timelines previously established within the Department of the Navy. I 
would use these indices to evaluate where and how to make any 
adjustments.
    Question. Section 1003 of the National Defense Authorization Act 
for Fiscal Year 2010 establishes an objective for the Department of 
Defense to ensure that its financial statements are validated as ready 
for audit by not later than September 30, 2017. The provision requires 
the Department to establish interim goals, including objectives for 
each of the Military Departments.
    What is your understanding of the status of Navy efforts to ensure 
that its financial statement is validated as ready for audit by the 
statutory deadline?
    Answer. I understand that the Department has a Financial 
Improvement Plan and is making progress toward achieving auditable 
financial statements. However, a substantial amount of work remains to 
be completed if the Department is to improve its business processes and 
systems. Difficult issues must be addressed, including the valuation of 
major weapon systems and equipment. While I support the 2017 goal, I 
have not had the opportunity to review the plan and at this time could 
not inform you of my confidence level that the September 30, 2017 goal 
is achievable.
    Question. What additional steps do you believe the Department of 
the Navy should take to ensure that it meets the 2017 deadline?
    Answer. Maintaining a steady focus and commitment on all Department 
efforts enabling audit readiness will be critical to success in 2017 
and lay the foundation for a sustainable audit environment well into 
the future. If confirmed, I will review the objectives that have been 
prepared and determine whether they appear to be reasonable and 
effective.
    Question. What is the role of the Assistant Secretary of the Navy 
(Financial Management and Comptroller) in this effort?
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) provides the overall leadership within the Department 
to achieve auditable financial statements. However, the ability to 
produce auditable statements is influenced by all the business 
operations and processes within the Department. If confirmed, I will 
work with the civilian and military leadership, process owners and the 
Office of the Secretary of Defense (Comptroller) to meet the 
requirement for auditable financial statements.
    Question. If confirmed, how will you work with the Chief Management 
Officer of the Department of the Navy and the Navy Business 
Transformation Office in this effort?
    Answer. If confirmed, I will work closely with the Chief Management 
Officer of the Department of the Navy and the Navy Business 
Transformation Office to ensure that budget, finance, and accounting 
operations are considered in changes to Department of the Navy business 
processes. I will provide leadership and advice in the financial 
management functional area and ensure that those efforts are aligned 
with Department of Defense priorities to achieve and sustain auditable 
financial statements.
               supplemental funding and annual budgeting
    Question. Since September 11, 2001, the Department of Defense has 
paid for much of the cost of ongoing military operations through 
supplemental appropriations, and the fiscal year 2014 budget included a 
full-year request for overseas contingency operations.
    What are your views regarding the use of supplemental 
appropriations to fund the cost of ongoing military operations?
    Answer. The longstanding practice of using supplemental 
appropriation requests to fund contingency operations has allowed the 
administration and Congress to specifically identify and review the 
cost of military operations above those costs necessary to provide for 
ongoing national security activities. While this has been an added 
burden to the resource process, it should continue to diminish as 
operations continue to wind down. I believe this method has been 
helpful in allowing these two branches of government to fulfill their 
respective roles and responsibilities.
                  budget control act and sequestration
    Question. Due to the 2011 Budget Control Act (BCA) sequestration is 
cutting the enacted fiscal year 2013 defense budget by more than $40 
billion and, without changes to the BCA, sequestration will cut the DOD 
budget request by approximately $52 billion.
    What are your views regarding the Budget Control Act and 
sequestration of budgetary resources?
    Answer. The BCA is law until the President and Congress negotiate 
an alternative solution. I agree with the general observations made by 
those involved that ensuring compliance with BCA implementation 
requirements has produced significant challenges to effective and 
efficient DOD operations. I am also aware that the possibility exists 
for implementation of the BCA in fiscal year 2014 if the law remains in 
place.
    If confirmed, it will be my responsibility to advise the Secretary 
of the Navy, the Chief of Naval Operations and the Commandant of the 
Marine Corps how best to implement BCA reductions to lessen the adverse 
impact that sequestration will have on the Naval enterprise and on 
national security.
    Question. What is your view of the impact that sequestration in 
fiscal year 2014 and beyond would have in the Department of the Navy?
    Answer. At this point, I am unfamiliar with the specific effects of 
sequestration in fiscal year 2014 and beyond for the Department of the 
Navy, but I generally understand and personally believe that 
sequestration will in all likelihood, dramatically, and in very short 
order, degrade readiness and adversely affect the health and morale of 
the all volunteer force. If confirmed, it will be my responsibility to 
advise the Secretary of the Navy, the Chief of Naval Operations and the 
Commandant of the Marine Corps how best to implement BCA reductions to 
lessen the adverse impact that sequestration will have on the Naval 
enterprise and on national security.
                       furlough of navy personnel
    Question. It was previously reported that the Navy believed it 
could structure its available fiscal year 2013 funding to avoid having 
any furlough days for Navy civilian workers. However, other parts of 
DOD were not in a position to do the same for their own civilian 
workers and, in the end, DOD's solution was to have all DOD civilian 
workers, including Navy civilian workers, take up to 11 furlough days.
    What is the impact on the Navy's various budget accounts, and on 
Navy readiness, of the DOD decision to require Navy civilian workers to 
be furloughed for up to 11 days?
    Answer. While I am aware that the CNO and Commandant had to make 
very tough choices, I do not have insight into the DOD decision process 
that required them to direct the DON to furlough. If confirmed, I will 
be able to study these impacts further and provide you greater insight 
in the future.
    Question. Now that the Navy has finally determined the impact of 
the March 1, 2013, sequester on the Navy's fiscal year 2013 accounts, 
was the impact of the sequester on the Navy along the lines of what 
Navy and DOD officials originally expected and forecast?
    Answer. I do not have insight into how the DON is implementing 
sequestration versus its original forecasts. If confirmed, I will be 
able to review fiscal year 2013 execution to assess the funal impact of 
sequestration.
    Question. What does the experience with the sequestration of fiscal 
year 2013 accounts tell us about the potential impact of sequestration 
later this year or early next year on the Navy's fiscal year 2014 
accounts?
    Answer. While the President's budget submitted for fiscal year 2014 
did not assume the impacts of sequestration, it is my understanding 
that the Department has been directed to prepare for the possibility of 
sequestration continuing into fiscal year 2014. I am not aware of any 
specifics.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S.C., is necessary before funds for operations and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by the Department of 
Defense?
    Answer. Yes. Furthermore, if confirmed, I will respect the views 
and prerogatives of the Department's oversight committees.
          laboratory directed research and development (ldrd)
    Question. Section 219 of the NDAA for Fiscal Year 2009 authorized 
the Secretary of Defense, in consultation with the Secretaries of the 
military departments, to ``establish mechanisms under which the 
director of a defense laboratory may use an amount of funds equal to 
not more than three per cent of all funds available to the defense 
laboratory . . . to fund innovative basic and applied research and 
several other purposes at these laboratories.'' Similar to the model of 
the Department of Energy LDRD program, the purpose of section 219 is to 
provide funding and discretion to the Navy's laboratory and technical 
center directors, to support the continued infusion of new ideas that 
support Navy missions, and in particular to authorize the directors to 
exercise some discretion in investing in promising technologies and 
other laboratory activities.
    What should the role and authority of the Navy comptroller's 
organization be in implementing this statute?
    Answer. I agree that the Navy's laboratory and technical centers 
are vital to supporting Navy's mission. The Navy Comptroller's role in 
implementing this statute is to develop a budget strategy consistent 
with the congressional direction, to ensure the implementation and 
execution of this authority is done in accordance with the law, and to 
ensure appropriate financial and accounting methods are in place to 
support this program. If confirmed, I will ensure the Department's 
budget strategy and policies are in accordance with the law.
    Question. How would you intend to enable the laboratory director's 
discretion over such funding to support its effective implementation, 
similar to the Department of Energy model?
    Answer. At this point, I do not have the necessary familiarity with 
the Department of Energy model, but if confirmed, I will work with the 
Assistant Secretary of the Navy (Research, Development and Acquisition) 
and the Office of the Secretary of Defense (Comptroller) to ensure 
effective and successful implementation.
 budgeting to address operational needs and technological opportunities
    Question. The Services often are often faced with situations in 
which an urgent operational need or a new technological opportunity 
arises on a timeline that is inconsistent with the relatively slow 
budgeting and programming process.
    How should the Navy change its processes so that its budgeting, 
programming, and planning processes are more adaptable to emerging 
operational needs and technological opportunities?
    Answer. At this point, I do not have the necessary familiarity with 
current processes to answer this question, but if confirmed, I will 
review all current processes to see if there are adjustments to be made 
that make us more adaptable to emerging operational needs and 
technological opportunities.
                     in-kind military construction
    Question. The committee released a report on April 15, 2013, titled 
``Inquiry into U.S. Costs and Allied Contributions to Support the U.S. 
Military Presence Overseas.'' Among other things, the committee's 
inquiry found that in-kind payments from Germany, South Korea, and 
Japan have been used to fund questionable military construction 
projects. The committee's version of the National Defense Authorization 
Act for Fiscal Year 2014 includes a provision (section 2801) that would 
require that future military construction projects funded using in-kind 
payments pursuant to bilateral agreements with partner nations be 
submitted for congressional authorization in the Military Construction 
Authorization Act.
    If confirmed, how would you ensure that in-kind payments are 
utilized only for identified U.S. priorities to offset costs that the 
Department of the Navy would otherwise pay with appropriated funds?
    Answer. At this point, I do not have a complete understanding of 
the prevalence of this method of funding nor the specific details of 
its prior use within the Department of the Navy. Upon receipt of this 
question, I reviewed the Navy-specific sections in the referenced 
report. If confirmed, I will ensure that gaining an understanding this 
practice will become one of my immediate short-term priorities and that 
my understanding is placed in the context of other legal authorities 
and constraints.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, I agree.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy (Financial Management and Comptroller)?
    Answer. Yes, I agree.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, I agree.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, I agree.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
bonuses paid to senior executive service employees of the department of 
                                defense
    1. Senator McCaskill. Dr. Rabern, in 2011, the Department of the 
Navy (DON) was among the few Federal agencies that awarded, on average, 
more than one bonus per Senior Executive Service (SES) employee. The 
Navy was also one of the five agencies with the highest average 
spending on SES bonuses, awarding more than $13,000 in bonuses per SES 
employee. If confirmed, will you share with this committee the status 
of bonuses paid to SES employees in the Navy in fiscal year 2012, 
including the total amount paid, the amount per SES employee, the 
number and percentage of SES employees receiving bonuses, and whether 
any SES employees received aggregate pay above the statutory limit of 
$230,700?
    Dr. Rabern. Yes, if confirmed I will share with the committee the 
status of SES bonuses in the Navy.

    2. Senator McCaskill. Dr. Rabern, will you commit to reviewing, and 
changing, if necessary, the metrics used to determine the performance 
level of SES employees, and provide information to this committee 
regarding the progress and results of your review?
    Dr. Rabern. Yes, if confirmed I commit to reviewing the metrics 
used to determine the performance level of SES employees and, if 
necessary, will propose changes to the appropriate DON, Department of 
Defense (DOD), or Office of Personnel Management officials.

                      department of the navy audit
    3. Senator McCaskill. Dr. Rabern, Public Law 111-84, the National 
Defense Authorization Act of 2010, enacted October 28, 2009, requires 
auditable DOD financial statements by September 30, 2017. While 
progress is being made, the current Assistant Secretary of the Navy 
(Financial Management and Comptroller) acknowledged several material 
weaknesses related to the Navy's business processes and systems that 
prevent the Navy from producing auditable financial statements. Given 
the numerous weaknesses that have been identified, do you believe that 
the Navy will be in a position to keep up its end of the bargain in 
getting DOD to a point where it can be audited in the next 4 years?
    Dr. Rabern. I understand that the Department has a Financial 
Improvement Plan and is making progress toward achieving auditable 
financial statements. However, I have not had the opportunity to review 
the plan and at this time could not inform you of my confidence level 
that the September 30, 2017, goal is achievable.

    4. Senator McCaskill. Dr. Rabern, what gives you confidence that 
the Navy can meet the 2017 goal?
    Dr. Rabern. Even though I support the 2017 goal, I have not had the 
opportunity to review the plan and at this time could not inform you of 
my confidence level that the September 30, 2017, goal is achievable.

    5. Senator McCaskill. Dr. Rabern, on July 18, the DOD OIG released 
a report raising concerns about the Navy's use of the Navy Enterprise 
Resource Planning System (Navy ERP). The DOD OIG found that while the 
Navy has identified a material weakness in the its ability to account 
for Navy military equipment, and has identified Navy ERP as the 
solution, the Navy is in fact not using Navy ERP to account for this 
equipment. Rather, the Navy continues to use what the DOD OIG called 
``inefficient manual processes'' in its accounting procedures. The Navy 
spent $870 million to develop and implement Navy ERP, and the Navy 
needs to be fully utilizing its capabilities. If confirmed, will you 
take a close look at this issue to ensure the Navy is appropriately 
using the resources at its disposal to be accountable and achieve its 
audit-ready obligations?
    Dr. Rabern. If confirmed, I commit to working closely with my 
civilian counterparts and military leadership within the Department of 
the Navy and the Office of the Secretary of Defense (Comptroller) to 
properly allocate and account for resources, to improve our systems and 
processes, and to achieve auditable financial statements.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III
                          contractor salaries
    6. Senator Manchin. Dr. Rabern, since I've gotten to the Senate, 
I've been asking DOD how many contractors there are, and how much money 
they make. I still don't have an answer. What I do know is that 
contractors can make up to $763,000--funded by the taxpayers. If we do 
nothing, that figure will rise to nearly $1 million this year. What is 
your opinion on paying our contractors nearly $1 million?
    Dr. Rabern. In my experience, government contracts generally do not 
specify a number of personnel required to satisfy the terms; rather, 
the government contracts for performance of a specific set of tasks, 
objectives, or services. I do not have in depth knowledge of the 
salaries paid to Department of Navy contractor personnel. If confirmed, 
I commit to looking at this issue and providing informed 
recommendations to senior leadership of the Department of the Navy 
regarding the efficient and effective allocation of resources 
consistent with the national security priorities of the President and 
the Secretary of Defense.

    7. Senator Manchin. Dr. Rabern, would it have an impact on the 
readiness of the military if we brought that figure to a more 
reasonable amount?
    Dr. Rabern. I do not have sufficient information to respond to this 
question at this time. If confirmed, I commit to looking at this issue 
and providing informed recommendations to senior leadership of the 
Department of the Navy regarding the efficient and effective allocation 
of resources consistent with the national security priorities of the 
President and the Secretary of Defense.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                               priorities
    8. Senator Inhofe. Dr. Rabern, do you believe the Navy's purchase 
last year of 450,000 gallons of biofuels for $12 million using scarce 
operations and maintenance (O&M) funds at a cost of over $26 a gallon 
is an efficient, effective use of O&M funds and is an example of proper 
stewardship?
    Dr. Rabern. I am not familiar with the details of this purchase and 
cannot provide an opinion on the matter at this time. If confirmed, I 
will ensure that we develop and execute balanced budgets that are the 
result of thorough and timely analysis and in support of the goals and 
initiatives that Secretary Mabus has established for the Department.

                    financial management and control
    9. Senator Inhofe. Dr. Rabern, based on your extensive experience 
in financial management do you believe it is prudent for any Federal 
agency to submit their annual budget submission without including 
consideration for the effects of the Budget Control Act?
    Dr. Rabern. I have not been associated with any budget submissions 
since passage of the Budget Control Act of 2011, but I believe that 
agency budgets should be submitted consistent with the requirements and 
constraints of the law.

                  dod financial accounting and audits
    10. Senator Inhofe. Dr. Rabern, if confirmed, what is your 
understanding of your role in finally establishing the level of audit 
readiness that is required by law?
    Dr. Rabern. The Assistant Secretary of the Navy (Financial 
Management and Comptroller) provides the overall leadership within the 
Department to achieve auditable financial statements. However, the 
ability to produce auditable statements is influenced by all the 
business operations and processes within the Department. If confirmed, 
I will work with the civilian and military leadership, process owners, 
and the Office of the Secretary of Defense (Comptroller) to meet the 
requirement for auditable financial statements.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                         navy facility backlog
    11. Senator Ayotte. Dr. Rabern, section 2476 of title 10 requires 6 
percent of annual capital investment for certain depots. Are you aware 
of this requirement and will you commit to follow that requirement?
    Dr. Rabern. I am familiar with this requirement, and if confirmed, 
I commit to working with the Chief of Naval Operations, Commandant of 
the Marine Corps, and the Assistant Secretaries of the Navy for 
Research, Development, and Acquisition and Energy, Installations and 
Environment to ensure that whatever funding may be available for shore 
infrastructure, including shipyards and depots, is allocated 
appropriately to meet mission critical needs.

                               dod audit
    12. Senator Ayotte. Dr. Rabern, with DOD facing significant budget 
reductions, it is more important than ever that we have reliable 
financial data so we can differentiate between necessary budget cuts 
and those that would harm our troops and endanger our national 
security. Do I have your commitment that the Navy will meet the 2014 
statement of budgetary resources deadline, as required by the National 
Defense Authorization Act for Fiscal Year 2013?
    Dr. Rabern. If confirmed, I am committed to maintaining a steady 
focus on all Department efforts towards clean audit opinions and 
critical to that success is assertion in 2014. If confirmed, I will 
review the objectives that have been prepared and determine whether 
they appear to be reasonable and effective.

    13. Senator Ayotte. Dr. Rabern, is the Navy creating systems and 
processes that will be repeatable so that we avoid expending great 
effort to ensure the Navy is audit ready--only to find that the Navy is 
unable to sustain these efforts over the long-term?
    Dr. Rabern. A crucial step in the DON plan to achieve audit success 
is laying the foundation for a sustainable audit environment well into 
the future. If confirmed, I will review the objectives that have been 
prepared and determine whether they appear to be reasonable and 
effective.
                                 ______
                                 
    [The nomination reference of Dr. Susan J. Rabern follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 27, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Susan J. Rabern, of Kansas, to be an Assistant Secretary of the 
Navy, vice Gladys Commons, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Susan J. Rabern, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Susan J. Rabern
Education:
    University of Kansas

        <bullet> 1970-1974
        <bullet> B.A. degree in Biology, 1974

    Boston University

        <bullet> 1979-1980
        <bullet> M.A. degree in Education, 1980

    San Diego State University

        <bullet> 1983-1986
        <bullet> M.B.A. (finance) degree, 1986

    National Defense University

        <bullet> 1995-1996
        <bullet> M.S. (strategic studies) degree, 1996

    University of Virginia, Darden School of Business

        <bullet> 2003-2009
        <bullet> Ph.D (ethics and entrepreneurship) degree 2998
Employment record:
    Virginia Military Institute

        <bullet> Director, Center for Leadership & Ethics
        <bullet> 2009-Present

    U.S. Agency for International Development

        <bullet> Deputy Director, Office of Military Affairs
        <bullet> 2007-2009

    Virginia Military Institute

        <bullet> Special Assistant to the Chief of Staff and 
        Superintendent
        <bullet> 2003-2007

    Federal Bureau of Investigation

        <bullet> Chief Financial Officer
        <bullet> 2000-2002

    U.S. Customs Service

        <bullet> Assistant Commissioner and Chief Financial Officer
        <bullet> 2002

    U.S. Agency for International Development

        <bullet> Chief Financial Officer
        <bullet> 2002-2003

    U.S. Navy (active duty, 1980-2000)

        <bullet> Retired in 2000 in rank of Captain (0-6)

    U.S. Naval Hospital, Naples, Italy,

        <bullet> Counselor
        <bullet> 1978-1980
Honors and awards:
    Defense Superior Service Medal
    Meritorious Service Medal (six awards)
    Joint Service Commendation Medal
    Navy Commendation Medal
    Commandant's Award for Excellence in Research & Writing, Industrial 
College of the Armed Forces, National Defense University (1996)
Boards:
    Community Foundation of Rockbridge, Bath, and Alleghany Counties.

        <bullet> Board Member and Committee Chair (Grants/Audit)

    Academy of Management

        <bullet> Member

    Omicron Delta Kappa, National Leadership Society

        <bullet> Member
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Susan J. 
Rabern in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Susan Jean Rabern (Susan Jean Wynn, Susan Jean Kite, Susan Jean 
Blunt).

    2. Position to which nominated:
    Assistant Secretary of the Navy (Financial Management and 
Comptroller).

    3. Date of nomination:
    June 27, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 28, 1952; McPherson, KS.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to David William Rabern.

    7. Names and ages of children:
    Stacey Elaine (Blunt) Lobst, age 35.
    Allison (NMN) (Blunt) Leigh, age 30.
    Megan Lynn Blunt, age 28.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Kansas, 1970-1974, BA (Biology), 1974
    Boston University, 1979-1980, MA (Education), 1980
    San Diego State University, 1983-1986, MBA (Finance), 1986
    National Defense University, Industrial College of the Armed 
Forces, 1995-1996, MS (Strategic Studies), 1996
    University of Virginia, Darden School of Business, 2003-2009, Ph.D. 
(Ethics & Entrepreneurship), 2009

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Director, Center for Leadership and Ethics, Marshall Hall, Virginia 
Military Institute, Lexington, VA, 2009-present
    Deputy Director, Office of Military Affairs, U.S. Agency for 
International Development, Ronald Reagan Building, Washington, DC, 
2007-2009
    Special Assistant to the Chief of Staff and Superintendent, 
Virginia Military Institute, Intergovernmental Personnel Assignment 
from U.S. Agency for International Development, Virginia Military 
Institute, Lexington, VA, 2003-2007

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    U.S. Navy (Active Duty, 21 years, retired 2000, rank Captain)
    Assistant Director and Chief Financial Officer, Federal Bureau of 
Investigation, 2000-2002
    Assistant Commissioner and Chief Financial Officer, U.S. Customs 
Service, 2002
    Chief Financial Officer, U.S. Agency for International Development, 
2002-2003
    Counselor, U.S. Naval Hospital, Naples, Italy, 1978-1980

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Owner, Provenance Mill Clothiers, Fairfield, VA
    Owner, Shenandoah Fiber, Fairfield, VA

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Board Member and Committee Chair (Grants/Audit), Community 
Foundation of Rockbridge, Bath, and Alleghany Counties.
    Member, Academy of Management
    Member, Omicron Delta Kappa, National Leadership Society

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Defense Superior Service Medal
    Meritorious Service Medal (six awards)
    Joint Service Commendation Medal
    Navy Commendation Medal.
    Commandant's Award for Excellence in Research and Writing, 
Industrial College of the Armed Forces, National Defense University 
(1996)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Doctoral Dissertation:

        <bullet> 2009, University of Virginia. Leveraging the Feds: An 
        Assessment of the Effectiveness of Corporate Political 
        Strategies

    Book Length Government Manuscripts:

        <bullet> 2000 National Defense University, Industrial College 
        of the Armed Forces, Philanthropy, Statesmanship, Innocence or 
        Greed? U.S. Engagement with the Former Soviet Union 1992-2000
        <bullet> 1996, National Defense University, Industrial College 
        of the Armed Forces, The Effect of Organized Crime on the Post-
        Cold War Economy of Russia

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, ifconfirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies 
ofelectronic forms of communication, in a timely manner when requested 
by a duly constituted committee, orto consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Susan J. Rabern.
    This 18th day of July, 2013.

    [The nomination of Dr. Susan J. Rabern was reported to the 
Senate by Chairman Levin on July 30, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 1, 2013.]
                              ----------                              

    [Prepared questions submitted to Mr. Dennis V. McGinn by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe the Goldwater-Nichols defense reforms have been 
very effective, and I am not aware of the need for any modifications.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I am not aware of the need for any modifications to 
Goldwater-Nichols, but if confirmed, I will work with the Secretary of 
the Navy and Under Secretary of the Navy on any proposed changes that 
pertain to Navy energy, installations or the environment.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy for Energy, Installations, and 
Environment?
    Answer. The Assistant Secretary of the Navy (Energy, Installations, 
and Environment) formulates policy and procedures for the effective 
management of the Navy and Marine Corps energy programs, real property, 
housing and other facilities; environmental protection ashore and 
afloat; and, safety and occupational health for both military and 
civilian personnel. This position is also responsible for the timely 
completion of closures and realignments of installations under base 
closure laws.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. During my 35-year career with the U.S. Navy I served as a 
naval aviator, test pilot, aircraft carrier commanding officer, and 
national security strategist. My capstone assignment with the Navy was 
as Deputy Chief of Naval Operations for Warfare Requirements and 
Programs at the Pentagon, where I oversaw the development of future 
U.S. Navy capabilities. In my previous operational leadership roles, I 
commanded the U.S. Third Fleet.
    In my civilian career I have served as co-chairman of the Center 
for Naval Analyses (CNA) Military Advisory Board advising policy makers 
on the nexus of energy and national security, and as an international 
security senior fellow at the Rocky Mountain Institute. I served on the 
Steering Committee of the Energy Future Coalition, as a member of the 
United States Energy Security Council, and as a member of the 
Bipartisan Policy Center Energy Board. I previously worked with 
Battelle Memorial Institute, where I was a corporate officer and led 
the energy, transportation, and environment division. While serving as 
the CEO and President of the American Council On Renewable Energy 
(ACORE), I led the advancement of the organization's mission of 
building a secure and prosperous America with clean, renewable energy.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Navy for Energy, Installations, and Environment?
    Answer. I am confident that there is much that I can do to enhance 
my abilities to perform the duties of the Assistant Secretary of the 
Navy (Energy, Installations and Environment). If confirmed, I will seek 
to learn more about the individual programs and facilities within my 
purview, as well as the different requirements associated with military 
construction. Using my significant managerial experience, I would 
expect to parlay the expertise and views of those within the Department 
of the Navy, as well as those of the Secretary of Defense and the other 
military departments, to develop efficient and effective policies for 
the Department's use of our installations and the environment. If 
confirmed, I will also seek and listen to the advice and counsel of 
Congress, and the communities in which we operate, to find ways to be 
the best steward of the Department of the Navy's properties.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Navy would prescribe for you?
    Answer. If confirmed, I would expect the Secretary of the Navy to 
prescribe the duties and functions stated above. Additionally, I would 
expect that the Secretary will request that I rely upon my years of 
operational experience to assist him in developing and implementing 
programs to meet the energy goals he laid out for the Department.
                             relationships
    Question. If confirmed, what would be your professional 
relationship with:
    The Secretary of the Navy.
    Answer. If confirmed, I will seek to carry out the goals and 
priorities of the Secretary of the Navy.
    Question. The Under Secretary of the Navy.
    Answer. If confirmed, I will work directly with the Under Secretary 
and seek his counsel and guidance as I work to support his efforts to 
carry out the goals and priorities of the Secretary of the Navy.
    Question. The Chief of Naval Operations.
    Answer. If confirmed, I will provide the support that the Chief of 
Naval Operations requires to execute his duties and responsibilities 
and achieve the mission of the Navy.
    Question. The Commandant of the Marine Corps.
    Answer. If confirmed, I will provide the support that the 
Commandant requires to execute his duties and responsibilities and 
achieve the mission of the Marine Corps.
    Question. The Deputy Under Secretary of Defense for Installations 
and Environment.
    Answer. If confirmed, I will work with the Deputy Under Secretary 
of Defense for Installations and Environment to develop and execute the 
policies and initiatives of the President, the Secretary of Defense, 
and the Secretary of the Navy.
    Question. The Assistant Secretary of Defense for Operational Energy 
Plans and Programs.
    Answer. If confirmed, I will work with the Assistant Secretary of 
Defense for Operational Energy Plans and Programs to develop and 
execute the policies and initiatives of the President, the Secretary of 
Defense, and the Secretary of the Navy.
    Question. The other Assistant Secretaries of the Navy.
    Answer. If confirmed, I will work as part of the team to ensure 
that we present the best collaborative approach to supporting the goals 
and priorities of the Secretary of the Navy.
    Question. The Assistant Secretaries of the Army and Air Force for 
Installations and Environment.
    Answer. If confirmed, I will work closely with the Assistant 
Secretaries of the Army and Air Force for Installations and Environment 
to strengthen the cooperation between the Services. I will work to 
foster a cordial and productive working relationship with these 
colleagues.
    Question. The General Counsel of the Navy.
    Answer. If confirmed, I will work closely with the General Counsel 
of the Navy to ensure that the programs we execute, and the policies we 
develop are consistent with the law.
    Question. The Judge Advocate General of the Navy.
    Answer. If confirmed, I will work closely with the Judge Advocate 
General of the Navy to ensure that the programs we execute and the 
policies we develop are consistent with the areas of law contained 
within her purview. I would also expect to work directly with the Judge 
Advocate General of the Navy on areas of mutual interest.
    Question. The Director of Naval Energy Policy.
    Answer. If confirmed, I will work with the Director of Naval Energy 
Policy to identify and implement policies and practices that best 
support the needs of the Department of the Navy.
    Question. Commander, Naval Facilities Engineering Command.
    Answer. If confirmed, I will work with the Commander, Naval 
Facilities Engineering Command to identify and implement policies and 
practices that best support the needs of the Department of the Navy.
    Question. Commander, Navy Installations Command.
    Answer. If confirmed, I will work with the Commander, Navy 
Installations Command to identify and implement policies and practices 
that best support the needs of the Department of the Navy, our sailors, 
marines, and their families.
                     major challenges and problems
    Question. In your view, what are the major challenges that confront 
the Assistant Secretary of the Navy for Energy, Installations, and 
Environment?
    Answer. There are many significant challenges confronting the next 
Assistant Secretary of the Navy (Energy, Installations, and 
Environment). The most significant of these includes the Guam military 
construction projects, ensuring that the Department of the Navy has the 
right infrastructure at the right time for the right cost to support 
the country's warfighters and their families, and establishing the 
programs necessary to meet the Department's energy goals.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan to work closely with Congress, the 
Secretary of the Navy, the Chief of Naval Operations, the Commandant of 
the Marine Corps, the Deputy Under Secretary of Defense (Installations 
and Environment), as well as other governmental and nongovernmental 
organizations to devise solutions to address these challenges and 
maximize successful outcomes for all parties involved.
    Question. What do you consider to be the most significant problems 
in the performance of the functions of the Assistant Secretary of the 
Navy for Energy, Installations, and Environment?
    Answer. I am not aware of any significant problems in the 
performance of the functions of the Assistant Secretary of the Navy for 
Energy, Installations and Environment.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I will work closely with the Secretary and 
the Under Secretary of the Navy to develop a strategic plan to address 
significant problems that arise.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Navy for Energy, Installations, and Environment?
    Answer. If confirmed, I will establish priorities consistent with 
those of the President, the Secretary of Defense, and the Secretary of 
the Navy. In broad terms, I will assist the Secretary of the Navy in 
meeting the energy goals he laid out for the Department, work closely 
with Members of Congress and State and local officials and the public 
to remain fully transparent when considering projects and processes 
with environmental impacts, and seek to allocate funding to develop the 
right infrastructure at the right time at the right cost to support our 
warfighters and their families.
    Question. Do you have any specific plans to help improve the 
quality of life for Navy and Marine Corps families who are under 
considerable strain as a result of repeated deployments?
    Answer. Not at this time, but as a 35 year Navy veteran, I am very 
aware of the tremendous sacrifices made by Navy and Marine Corps 
families. If confirmed, I will be committed to identifying and 
implementing quality of life initiatives.
    Question. The Assistant Secretary of the Navy for Energy, 
Installations, and Environment has responsibility for, among other 
things, enhancing energy security, construction and maintenance of 
installations; family housing, and environmental protection.
    In the competition for resources inherent in the Defense Department 
budget process, how do you believe funding for these various 
responsibilities should be balanced?
    Answer. These important programs are not mutually exclusive. 
Although they would certainly compete for the same limited resources, 
the development of these programs must be done in conjunction with each 
other. All of these programs must work hand-in-hand to further the 
strategic vision and goals of the Secretary of the Navy.
                         military construction
    Question. What would be your highest priorities, if confirmed, for 
allocating military construction (MILCON) funding for the Department of 
the Navy over the next several years?
    Answer. If confirmed, I will seek to allocate funding to develop 
the right infrastructure at the right time at the right cost to support 
our warfighters and their families.
    Question. Are you concerned that overseas initiatives, including 
the realignment of marines in the Pacific, will consume an increasing 
share of the Department of the Navy MILCON budget--thereby crowding out 
other programs such as housing and quality of life programs for 
sailors, marines, and their families?
    Answer. Although we find ourselves in a challenging fiscal 
environment, I am cautiously optimistic that we will be able to meet 
all of these challenges and fund the right investments at the right 
time.
                                  guam
    Question. The committee remains concerned about the plans for the 
relocation of marines from Okinawa to other locations in the Pacific, 
and specifically, the affordability, sustainability and operational 
viability of those plans. In April of last year, the United States and 
Japan announced a new plan for the marines--called the ``distributed 
laydown''--that envisions about 4,500 in Guam, about 2,500 in 
Australia, on a rotational basis, and some number in Hawaii. The 
committee's version of the National Defense Authorization Act for 
Fiscal Year 2014 would continue a prohibition on the use of U.S. or 
Japanese funds to implement the realignment of Marine Corps forces from 
Okinawa until several conditions, including the development of a master 
plan for the laydown of marines in Guam and Hawaii, are met.
    What is your understanding of the status of the Department of the 
Navy's plans for the realignment of Marine Corps forces from Okinawa?
    Answer. I have not had an opportunity to develop a thorough 
understanding of the issues associated with the relocation of marines 
and their families from Okinawa to Guam. From the information that I 
have seen at this point, I understand the Supplemental Environmental 
Impact Statement (SEIS) and associated supporting studies are being 
prepared and that the DON anticipates that the Draft SEIS will be 
formally released for public comment in early 2014 with a Record of 
Decision expected in early 2015.
    Question. What is your understanding of the current estimated cost 
to implement the realignment of Marine Corps forces from Okinawa?
    Answer. Although I am not familiar with the official estimates, I 
understand that the Department of Defense is identifying and 
incorporating comprehensive cost estimates as they become available 
upon completion of necessary environmental planning documents and the 
conclusion of host-nation discussions on cost-sharing.
    Question. When will the Department of the Navy provide the Senate 
Armed Services Committee with the Guam Master Plan so that the costs 
and timing of construction contracts for the entire project will be 
totally transparent?
    Answer. My understanding is that the Department will be able to 
provide the Guam Master Plan after the Draft SEIS is released, sometime 
next year.
                          futenma air station
    Question. The committee understands that Futenma Marine Corps Air 
Station on Okinawa will require significant investments to maintain 
mission capability and readiness. In fact, the marines estimate that 
current repair and construction demands will cost about $180 million.
    What is your understanding of the current plan to fund the nearly 
$180 million in repairs and construction?
    Answer. My understanding is that the Department has been working 
with the Government of Japan (GOJ) on a replacement facility for MCAS 
Fuetenma. In the interim, the Department is working with the GOJ to 
fund the repairs necessary to support operations at the base.
                     base closure and realignments
    Question. The Department of Defense has requested another Base 
Realignment and Closure (BRAC) round.
    Do you believe another BRAC round is necessary? If so, why?
    Answer. I believe it is prudent to objectively assess our shore 
assets and make informed decisions about potentially excess 
infrastructure. A new assessment would allow the Department to take 
into account changes to the shore/platform interfaces as our weapons 
systems capabilities, testing, and how we employ them have evolved over 
time.
    Question. If Congress were to authorize a another BRAC round, what 
is your understanding of the responsibilities of the Assistant 
Secretary of the Navy for Energy, Installations, and Environment in 
formulating BRAC recommendations and implementing the decisions of the 
BRAC Commission?
    Answer. If confirmed, I will serve as the Department of the Navy's 
primary senior leader charged with meeting our BRAC responsibilities. 
Accordingly, I will work closely with Congress, the Secretary of the 
Navy, the Chief of Naval Operations, the Commandant of the Marine 
Corps, the Deputy Under Secretary of Defense (Installations and 
Environment), as well as other governmental and nongovernmental 
organizations as appropriate in order to execute these statutory 
requirements.
    Question. If confirmed and if Congress were to authorize another 
BRAC round, how would you go about setting priorities for 
infrastructure reduction and consolidation within the Department of the 
Navy?
    Answer. If confirmed and Congress were to authorize a BRAC, I would 
first seek to gain a thorough understanding of the extent of the 
Department's footprint ashore and how it supports the warfighter. I 
would then ensure we have the necessary tools and resources to evaluate 
what exists in terms of military value. I would also work with my 
counterparts in the other Services for opportunities to consolidate or 
co-locate functions, where it makes sense.
    Question. If confirmed and if Congress were to authorize another 
BRAC round, what is you understanding of the responsibilities of the 
Assistant Secretary of the Navy for Energy, Installations, and 
Environment in working with local communities with respect to property 
disposal?
    Answer. I believe that the Department of the Navy is responsible 
for working with local communities to ensure an orderly and transparent 
transition from public ownership to private ownership.
    Question. It has been noted repeatedly that the 2005 BRAC round 
resulted in major and unanticipated implementation costs and saved far 
less money than originally estimated.
    What is your understanding of why such cost growth and lower 
realized savings have occurred?
    Answer. I am not familiar with the events leading cost growth in 
implementing BRAC 2005.
    Question. How do you believe such issues could be addressed in a 
future BRAC round?
    Answer. If confirmed, I would ensure that the program is 
implemented with management controls in place to help curtail excessive 
cost growth.
                          overseas facilities
    Question. Do you believe the Department of the Navy currently 
maintains excess infrastructure overseas? If so, how would you seek to 
address this issue?
    Answer. I have not had an opportunity to study Navy overseas force 
structure, however, if confirmed I will work with the Secretary of the 
Navy, the Chief of Naval Operations, and the Commandant to make sure 
Navy infrastructure is aligned with force structure to support naval 
operations.
                     in-kind military construction
    Question. The committee released a report on April 15, 2013, titled 
``Inquiry into U.S. Costs and Allied Contributions to Support the U.S. 
Military Presence Overseas.'' Among other things, the committee's 
inquiry found that in-kind payments from Germany, South Korea, and 
Japan have been used to fund questionable military construction 
projects. The committee's version of the National Defense Authorization 
Act for Fiscal Year 2014 includes a provision (section 2801) that would 
require that future military construction projects funded using in-kind 
payments pursuant to bilateral agreements with partner nations be 
submitted for congressional authorization in the Military Construction 
Authorization Act.
    If confirmed, how would you ensure that in-kind payments are 
utilized only for identified U.S. priorities to offset costs that the 
Department of the Navy would otherwise pay with appropriated funds?
    Answer. I do not have a complete understanding of this method of 
funding within the Navy but I have reviewed sections of the report 
mentioned in this question and I understand the issue and concerns. If 
confirmed, I will make certain I will work with the Assistant Secretary 
of the Navy (Financial Management and Comptroller) and others within 
the Department to respond to this question more completely.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in the past have 
testified that the military services under-invest in both the 
maintenance and recapitalization of facilities and infrastructure 
compared to private industry standards. Decades of under-investment in 
DOD installations has led to substantial backlogs of facility 
maintenance activities, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    If confirmed, what recommendations would you have for restoring and 
preserving the quality of our infrastructure?
    Answer. If confirmed, I will closely examine the way the Navy 
manages inventory and will work with the Secretary of the Navy, the 
Chief of Naval Operations, and the Commandant to make sure our 
infrastructure supports the warfighter.
    Question. This underinvestment in infrastructure is particularly 
acute in naval shipyard facilities. According to the Navy's shipyard 
modernization plan, it will take 17 years and $3.4 billion to clear the 
maintenance and infrastructure repair backlog.
    If confirmed, how do you plan on addressing this shortfall?
    Answer. Materiel readiness is a key enabler to maintaining freedom 
of the seas. I'm also aware of the fiscal challenges facing the 
Department. If confirmed, I will advocate for and work with the Chief 
of Naval Operations and the Assistant Secretary of the Navy (Research, 
Development, and Acquisition) to ensure that whatever funding may be 
available for shore infrastructure, including shipyards and depots, is 
allocated appropriately to meet mission critical needs.
    Question. How do you believe the difficult budget environment will 
affect the Navy's shipyard modernization efforts going forward in light 
of other competing priorities?
    Answer. I believe the current fiscal environment will present 
significant challenges across the entire Department. When faced with 
reduced resources, any organization, whether a business or a household, 
must assess its short- and long-term objectives and make prudent 
expenditures and investments accordingly. I believe the same holds true 
for the Department of the Navy. If confirmed, I will look forward to 
meeting the challenge of balancing the Department's infrastructure 
investments across a broad array of requirements.
                          enhanced use leases
    Question. Congress has provided the authority for each of the 
Service Secretaries to lease underutilized non-excess property and to 
use revenues generated by those leases to enhance infrastructure and 
operating costs on those installations. This so-called ``enhanced use 
lease'' (EUL) authority is being used in different ways and for 
different purposes by each of the military departments.
    What is your understanding of the EUL authority?
    Answer. My understanding is that the enhanced use lease authority 
is a valuable tool in the Department's infrastructure management 
toolbox. My understanding is that the Navy can use this authority to 
partner with industry and the outside community to maximize the use of 
Department property
    Question. What do you see as the future of the Department of the 
Navy's EUL program?
    Answer. I understand that there are several promising EUL 
opportunities that the Department of the Navy is currently examining.
    Question. What Navy and Marine Corps EUL projects do you see as 
most viable in the near term?
    Answer. Because I am not aware of all the current projects or those 
projects being considered, I could not identify the most viable in the 
near term. If confirmed, I will examine all of our projects more fully 
before making such an assessment.
    Question. If confirmed, what would be your priorities for the 
Department of the Navy's EUL program?
    Answer. I do not have a sufficient level of understanding to 
identify priorities at this time. If confirmed, I will examine all of 
our projects more fully and discuss with Navy stakeholders before 
making such an assessment.
    Question. If confirmed, would you consider the authority to provide 
support to energy initiatives?
    Answer. If confirmed, I will utilize the EUL program to ensure our 
warfighters and their families have the highest quality environment in 
which to live and work and that the Department's real estate is put to 
the highest valued uses.
    Question. The Congressional Budget Office has expressed concern 
that EUL authority could be used to acquire expensive facilities 
through long-term leases that commit the Department of Defense to make 
payments (rather than receiving payments) over an extended period of 
time.
    Do you believe that it would be appropriate to use EUL authority to 
commit future-years Department of Defense funds for long-term projects 
to acquire facilities that have not received approval through the 
normal budgeting process?
    Answer. I have not yet had an opportunity to study this issue, but 
if confirmed, I certainly will do so.
    Question. If confirmed, how would you address proposals to use EUL 
authority in this manner?
    Answer. Since I have not had an opportunity to study this issue, I 
do not know how I would address such proposals if confirmed.
                         base operating support
    Question. What is your understanding of the base operating support 
requirements of the Department of the Navy and Marine Corps?
    Answer. My understanding is that Base Operating Support (BOS) 
requirements of the Department of the navy are critical to the overall 
mission readiness of our Navy and Marine Corps. BOS funding finances 
shore activities that support ship, aviation, combat operations, 
critical training, facilities infrastructure maintenance, public 
safety, and family programs for both Active and Reserve components.
    Question. In your view, is the Department of the Navy receiving 
adequate funding for base operating support?
    Answer. I have not had an opportunity to review BOS funding in 
detail, but if confirmed, I will closely examine funding levels to 
ensure the highest quality living and working conditions for our 
sailors, marines, and their families.
    Question. How might the Department of the Navy distribute base 
operating funds to best ensure sound investment of constrained 
resources?
    Answer. If confirmed, I am committed to learning the methods and 
processes in place across the Department to guide investment decisions 
and distribution of resources.
                    family housing and privatization
    Question. In recent years, the Department of Defense and Congress 
have taken significant steps to improve family housing. The housing 
privatization program was created as an alternative approach to speed 
the improvement of military family housing and relieve base commanders 
of the burden of managing family housing. If confirmed for the position 
of Assistant Secretary of the Navy for Energy, Installations, and 
Environment you will have a key role in decisions regarding military 
family housing.
    What are your impressions of the overall quality and sufficiency of 
Navy and Marine Corps family housing both in the United States and 
abroad?
    Answer. My understanding is that major improvements have been made 
to the overall of the quality and sufficiency of family housing 
inventory, both domestically and overseas.
    Question. What are your views regarding the privatization of family 
housing?
    Answer. I believe the use of the housing privatization authorities 
was an important and necessary tool to revitalize a large inventory of 
homes in a relatively short period of time.
    Question. What is your view of the structure and general goals of 
the Department of the Navy's current housing privatization program?
    Answer. I believe the structure and general goals of the 
Department's housing privatization program are sound.
    Question. Do you believe the housing program should be modified in 
any way? If so, how?
    Answer. I have not had an opportunity to review the housing program 
in detail to determine if it should be modified in any way, but if 
confirmed, I will closely examine it to ensure the highest quality 
living and working conditions for our sailors, marines, and their 
families.
                       environmental restoration
    Question. The Department of the Navy's environmental restoration 
budget remains a significant part of the Navy's overall environmental 
program budget.
    What do you see as the main priorities for clean-up within the 
Department of the Navy program?
    Answer. The Department of the Navy's priorities for clean-up are 
established by the Deputy Under Secretary of Defense (Installations and 
Environment), and, if confirmed, I will work closely with the Deputy 
Under Secretary to ensure that those priorities are implemented
    Question. What will you do to ensure that adequate funding is 
requested and received so that clean-ups under the Installation 
Restoration Program and under the Military Munitions Remediation 
Program continue apace?
    Answer. If confirmed, I will ensure that I fully understand the 
clean-up priorities, as established by the Secretary of the Navy, and 
will work with the Secretary, as well as Members of Congress, to ensure 
that adequate funding for clean-up is both requested and received.
                past water contamination at camp lejeune
    Question. For more than 12 years, the Department of the Navy has 
been trying to understand and resolve issues associated with past water 
contamination suspected at Camp Lejeune in North Carolina. However, 
aspects of this matter remain unresolved, including the nature and 
extent of various scientific studies into the potential human exposure.
    If confirmed, what will you do to help ensure that all reasonable 
actions are taken to resolve this matter as expeditiously as possible?
    Answer. The Department of the Navy is committed to ensuring the 
health and safety of all its personnel--both past and present. I know 
that the Department has commissioned numerous scientific studies to 
inquire into a possible connection between past water contamination at 
Camp Lejeune and health issues of personnel who served there. I have 
not, however, been made privy to their results. If confirmed, I will 
ensure that the Department, using the information from these studies, 
acts promptly and in accordance with all applicable laws to resolve 
this important matter.
                 encroachment on military installations
    Question. Encroachment by commercial and residential development on 
military installations can negatively impact Navy and Marine Corps 
operations at military airfields, training ranges, and the development 
of new facilities.
    What do you see as the main constraints on the Department of the 
Navy's ability to use its facilities, including training ranges?
    Answer. I am not aware of any specific constraints on the 
Department of the Navy's ability to use its facilities. I believe that 
the Department has completed or is completing environmental impact 
statements for its training ranges, and that these ranges are operated 
in accordance with the results.
    Question. If confirmed, what policies or steps would you take to 
balance the trade-off between energy development and the impact on 
operations and training?
    Answer. I believe that military operations and energy development 
are not mutually exclusive. If confirmed, I would work closely with 
Federal, State, and local governments as well as the energy developers 
to meet the needs of the Department while enabling access to new 
sources of energy.
    Question. How can the Department of the Navy address the issues of 
encroachment around its bases in the United States, particularly with 
respect to encroachment caused by residential development?
    Answer. I believe the Department of the Navy must take a two-
pronged approach to addressing issues of encroachment around its bases. 
First, it is important to communicate concerns with local communities. 
Second, where appropriate, the Department should seek additional land 
surrounding its bases.
    Question. One significant issue for the Navy has been the potential 
interference to aircraft radars of wind farms installed around military 
installations and ranges.
    Given your qualifications, including as a former naval aviator, 
what would you propose as objectives and goals to address this issue?
    Answer. As a naval aviator, I know that while wind turbines can 
physically interfere with aircraft operations and military training 
routes, that problem is a merely matter of proper siting. The much more 
difficult issue is the electromagnetic interference caused wind 
turbines which can impact radars many miles away. I'm aware the 
Department of Defense has created a body to assess the impact of these 
projects and if confirmed I will work to ensure we can reap the 
benefits from alternative energy development without impacting training 
and operations.
    Question. What is your understanding of the Navy's ability to 
receive information and plans from potential developers in a timely and 
effective manner?
    Answer. I believe the Department of Defense has established 
procedures to assess the impact of these proposed projects and that 
while the process is still fairly new and developing, it does afford an 
opportunity for the Navy to review these plans. If confirmed, I would 
work to ensure this system continues to improve.
                    pending land withdrawal requests
    Question. As part of the President's budget request for fiscal year 
2014, the Department of Defense has requested legislation for a number 
of land withdrawals, including the reauthorization of the land 
withdrawals at the Chocolate Mountains and at China Lake, as well a 
land withdrawal to support an expansion at the Marine Corps base at 
Twentynine Palms.
    What is your understanding of these requests and why are each of 
these withdrawals important to the Department of Navy missions and 
capabilities?
    Answer. My general understanding is that the Department of Defense 
seeks to control only the minimum amount of property necessary to meet 
the military requirement. From my experience, I know the Chocolate 
Mountain range, the test center at China Lake and the Marine Corps base 
at Twentynine Palms are key DON installations.
                             energy policy
    Question. If confirmed, what would your responsibilities be for 
setting and implementing energy policy within the Department?
    Answer. If confirmed, my responsibilities would be to support the 
Secretary's Navy Energy Office and work towards meeting the Secretary's 
shore and operational energy goals.
    Question. Do you support the Department of Defense policy on 
alternative fuels released in July 2012 that the Department of Defense 
will not make bulk purchases of alternative drop-in replacement fuels 
unless they are cost competitive with petroleum products?
    Answer. Yes, I support the DOD policy to only make bulk purchases 
of alternative drop-in fuels that are cost competitive with 
conventional fuel.
    Question. In your view, how does the bulk use of alternative drop-
in replacement fuels improve the military capabilities of the fleet?
    Answer. In addition to reducing reliance on foreign sources of 
energy, ``drop-in'' fuels would not require any infrastructure or 
operational changes to bring on line.
    Question. Given recent forecasts about oil production in the United 
States over the next 30 years, what do you see as the national security 
implications, if any, of a dependence on fossil fuels?
    Answer. Fossil fuels, whether imported or domestically produced, 
are subject to price volatility and uncertainty of supply. Deriving 
fuels from other than petroleum sources adds to the supply and helps 
mitigate fluctuating prices.
    Question. In your opinion, are the statutory and regulatory goals 
for the Department of the Navy regarding the use of renewable energy 
and alternative fuels realistic and achievable?
    Answer. I have not yet had an opportunity to study this issue, but 
if confirmed, I will review the Department's progress towards meeting 
the statutory and regulatory goals regarding the use of renewable 
energy and alternative fuels. If confirmed, it is my intention to meet 
these goals unless otherwise directed.
    Question. What is your view of the adequacy of Department of the 
Navy funding to meet statutory and regulatory energy conservation 
goals?
    Answer. At this point, I do not have in-depth knowledge of the 
Department's budget, but I am aware of the significant fiscal 
challenges it faces. If confirmed, I will advocate for and work with 
the Secretary of the Navy, the CNO, the Commandant, the General 
Counsel, and the Judge Advocate General, to ensure statutory and 
regulatory conservation goals are met.
    Question. Do you believe that significant additional funding will 
be needed in future years to meet such goals?
    Answer. At this point, I do not have in-depth knowledge of the 
Department's budget, but I am aware of the significant fiscal 
challenges it faces. Further, energy security directly enhances 
national security. If confirmed, I will advocate for and work with the 
Secretary of the Navy, the CNO and the Commandant to ensure the 
continued support of the Department's energy goals while meeting the 
needs of the warfighter.
    Question. If confirmed, what energy goals and policies will you 
promote for the Department of the Navy for investments and initiatives 
that provide direct and tangible benefit to the warfighter or less cost 
for the Department?
    Answer. If confirmed, I will establish priorities consistent with 
those of the President, the Secretary of Defense, and the Secretary of 
the Navy. In broad terms, I will assist the Secretary of the Navy in 
meeting the energy goals laid out for the Department in 2009. I will 
promote energy policies that provide energy security for fleet and 
shore units, enable additional combat capability for operational 
forces, and leverage opportunities to reduce the energy cost of 
operating shore infrastructure.
                     implications of climate change
    Question. What do you see as the national security implications of 
climate change, if any, for the United States?
    Answer. Climate change will affect food production and living 
conditions to varying degrees worldwide. Rising sea levels will impact 
coastal communities as well as critical Navy infrastructure located in 
these communities.
    Question. What do you believe will be the impact of climate change, 
if any, on the Navy and Marine Corps mission?
    Answer. I believe the Navy and Marine Corps mission will remain the 
same however, we will need to enhance Navy capabilities to operate in 
Arctic waters, including weather and sea-condition forecasting. There 
is also likely to be a growing number of requests for help responding 
to natural disasters, food shortages, and government instability caused 
by climate change.
   department of the navy laboratory and test center recapitalization
    Question. There has been concern over the adequacy of 
recapitalization rates of the Department's laboratory facilities and 
test centers. Historically, Navy technical centers, laboratories and 
test centers do not appear to have fared well in the internal Navy 
competition for limited military construction and facility sustainment 
funds.
    What metrics would you use to assess the amount of investment in 
the recapitalization of Navy technical centers, laboratories and test 
centers to determine its adequacy?
    Answer. I have not had an opportunity to assess the amount of 
investment required, but if confirmed, I will closely examine the issue 
and work with the Assistant Secretary of the Navy (Research, 
Development, and Acquisition) (ASN(RD&A)) to determine the appropriate 
metrics to use.
    Question. If confirmed, how would you work with ASN(RD&A) and other 
stakeholders to properly recapitalize the Navy's technical centers, 
laboratories and test centers?
    Answer. If confirmed, I will work directly with the ASN(RD&A) to 
gain a better understanding of the requirement and with the Assistant 
Secretary of the Navy (Financial Management and Comptroller) to 
ascertain what are the available financing mechanisms and constraints.
                         section 2808 authority
    Question. Section 2808 of title 10, U.S.C., allows the Secretary of 
Defense, in the event of a declaration of war or national emergency, to 
undertake military construction projects supporting the use of Armed 
Forces with otherwise unobligated military construction funds.
    What is your assessment of this authority?
    Answer. I believe this authority is vital to provide construction 
projects necessary under a national emergency or declaration of war.
    Question. From a policy standpoint, what restrictions do you 
believe are appropriate for the use of this authority?
    Answer. I am not fully versed in the policy regarding this statute. 
If confirmed, I will ensure the Department is executing any projects 
under this statute in accordance with applicable guidance.
    Question. Do you believe it is appropriate to use this authority 
outside theaters of armed conflict? If so, in what instances?
    Answer. I believe the statute is necessary to allow the department 
flexibility in executing urgent construction projects in the event of a 
declaration of war or national emergency. I have not had an opportunity 
to study it in detail and cannot today provide an example of a 
hypothetical situation.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy for Energy, Installations, and Environment?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Joe Manchin III
                              sugar grove
    1. Senator Manchin. Mr. McGinn, I wanted to talk about Sugar 
Grove--a Navy base in West Virginia. This is a world-class facility 
that has contributed immensely to our national security, especially in 
the last decade during the war on terror. But, the mission is changing 
there. Sugar Grove is not going away, it's just going to have a 
different mission. We have been working with the Navy, and the 
community, and other governmental agencies, to find a new tenant and a 
new mission. Could you give me an update on how that process is going? 
Is there anything we can do to help move the process along?
    Mr. McGinn. I understand that the Navy is the installation host to 
another Government agency which has plans to leave the installation in 
a few years and that the Navy is currently looking for an alternative 
use for the installation after the NSA departs in a few years. I don't 
know what point in the process the Navy has reached, but if confirmed, 
I will ensure the Navy proceeds without undue delay and that I will 
keep you updated of any progress.

                             navy biofuels
    2. Senator Manchin. Mr. McGinn, the Navy has been pushing for 
greater usage of biofuels to cut its dependence on foreign oil. But, a 
RAND report published in 2011 raised serious questions regarding the 
ability to produce biofuels at a large enough scale to make a positive 
impact to military operations. However, that report did identify the 
production of fuel from a combination of biomass and coal as a near-
term pathway to low-greenhouse gas, affordable fuels that can be 
produced at a large scale. Have you read that RAND report?
    Mr. McGinn. Yes, I have read the report and am familiar with the 
assertions stated therein.

    3. Senator Manchin. Mr. McGinn, please comment on whether you will 
pursue near-term pathways such as coal and biomass-to-liquids 
technologies with real, near-term benefits.
    Mr. McGinn. It is my understanding that the Military Departments 
are testing and certifying pathways that will serve as a drop-in 
replacement for liquid fuels on our operational platforms. I am not 
aware of each pathway that has been tested and certified for use but 
would support all pathways that meet technical and legal standards.
                                 ______
                                 
                Question Submitted by Senator Tim Kaine
            navy laboratory and test center recapitalization
    4. Senator Kaine. Mr. McGinn, historically, Navy technical centers, 
laboratories, and test centers do not appear to have fared well in the 
internal Navy competition for limited military construction and 
facility sustainment funds. These centers and laboratories are crucial 
to developing the next generation of capabilities for the warfighter 
and the quality of research facilities influences the ability of the 
Navy to attract the best scientists and engineers. DOD is increasingly 
in competition with the private sector for the best and brightest. If 
confirmed, what will you do to adequately resource the Navy's 
laboratories and technical and test centers?
    Mr. McGinn. I agree that the Navy's laboratories and technical test 
centers are a crucial component of developing our future capability and 
readiness. The current fiscal environment will present significant 
investment challenges across the entire Department. If confirmed, I 
look forward to meeting the challenge of balancing the Department's 
infrastructure investments across a broad array of requirements, 
including laboratories and test centers.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                               priorities
    5. Senator Inhofe. Mr. McGinn, in October 2009, before the 
Environmental and Public Works Subcommittee, you testified: ``[Climate 
change] will magnify existing tensions in critical regions, overwhelm 
fragile political, economic and social structures, causing them to 
fracture and fail. The predictable result: much greater frequency and 
intensity of regional conflict and direct threats to our United States' 
interests and national security. . . . The science community has clear 
consensus in concluding that human activities are the most significant 
cause of climate change.'' Do you still believe this?
    Mr. McGinn. Yes, I do.

    6. Senator Inhofe. Mr. McGinn, you also testified: ``But unlike 
what many believe--it is not just foreign oil that jeopardizes our 
energy security. It is all oil. We simply do not have enough 
sustainable oil resources in this country to free us from the 
stranglehold of those who do . . . we will never have enough domestic 
supply to meet our need for this fuel so we must deliberately and 
effectively wean ourselves from it.'' Do you still believe this?
    Mr. McGinn. Yes, I continue to be concerned about our energy 
security and the global oil market, even with the welcome and positive 
projections of greatly increased domestic production to occur over the 
next 10 to 15 years. As a part of the global oil market, I believe it 
is in our national interest to minimize our vulnerability to supply 
interruptions and price spikes due to geo-political events, terrorism 
and natural disasters, in part by diversifying our sources of 
transportation energy.

    7. Senator Inhofe. Mr. McGinn, do you plan to formulate polices for 
the Navy to address these beliefs?
    Mr. McGinn. If confirmed, my formulation of energy policies for the 
Department of Navy will be guided by the policies of the President, the 
Secretary of Defense, and the Secretary of the Navy. I will apply my 
very best judgment to determine how best to balance the investment of 
available resources to achieve the best outcomes for both near-term 
mission readiness and future readiness and capabilities.

    8. Senator Inhofe. Mr. McGinn, what changes would you propose to 
Department of the Navy programs?
    Mr. McGinn. If confirmed, I will take a deliberate and 
collaborative cost, benefit and risk analysis approach to determine 
whether changes to Navy programs are necessary.

               responsibility for national energy policy
    9. Senator Inhofe. Mr. McGinn, which Federal agency, the Department 
of Energy (DOE) or DOD, is responsible for developing and promoting a 
national energy policy?
    Mr. McGinn. It is my understanding that the President establishes 
national energy policies which are then executed by multiple parts of 
the administration. I believe that a sound energy policy incorporates 
energy security and that both DOD and DOE have key roles to play as 
defined in several inter-agency agreements.

    10. Senator Inhofe. Mr. McGinn, in your opinion, given the 
devastating impact of sequestration occurring now to the readiness and 
capabilities of the Armed Forces, why should DOD be the primary source 
of funds and leadership for the construction of a commercial biofuels 
refinery?
    Mr. McGinn. A declining defense budget coupled with the elevated 
petroleum prices is the primary reason that DOD, the single largest 
consumer of fossil fuel in the Federal Government, is interested in 
accelerating the establishment of a domestic biofuels industry. It is 
my understanding that the agreement signed by the U.S. Department of 
Agriculture, the Department of Energy, and the Department of the Navy 
in 2011 to stand up a commercial scale, domestic biofuels industry that 
will produce drop-in alternative fuels at a price competitive with 
petroleum calls for equal contributions from each department. This 
investment figure will then be matched by private industry investment.

                       views on national security
    11. Senator Inhofe. Mr. McGinn, given the range of national 
security threats facing this Nation, how would you rank the threat of 
climate change?
    Mr. McGinn. I consider climate change to be a threat to our 
national security. It is one of many threats that our Navy and Marine 
Corps will confront and, in many ways, has the potential to act as a 
threat multiplier for instability, serving in some cases to augment and 
accelerate the underlying causes of conflict.

    12. Senator Inhofe. Mr. McGinn, how would you rank the threat of 
our Nation's dependence on fossil fuels?
    Mr. McGinn. I consider the Department of the Navy's reliance on 
petroleum products to fuel our ships and aircraft as a supply 
vulnerability. Despite the very good news about increasing U.S 
production of natural gas and petroleum, I am concerned by the increase 
in global demand, rising prices and potential supply disruptions. I 
support the Secretary of the Navy's efforts to lessen this 
vulnerability by increasing the energy efficiency of training and 
operations and the supply of domestically produced alternative fuels.

    13. Senator Inhofe. Mr. McGinn, are you familiar with the 
President's Defense Strategic Guidance released in January 2012? 
(Sustaining U.S. Global Leadership: Priorities for 21st Century 
Defense)
    Mr. McGinn. Yes, I am familiar with this guidance.

    14. Senator Inhofe. Mr. McGinn, how many additional hours will have 
to be dedicated to bring all these units and its aircrews back up to 
mission ready status?
    Mr. McGinn. While I understand that sequestration and Continuing 
Resolutions have had a significant negative impact on the Department's 
mission readiness, I have not had the opportunity to develop a thorough 
understanding of those effects and, if confirmed, will study this 
critical readiness issue and work to help alleviate it.

    15. Senator Inhofe. Mr. McGinn, how much will that cost?
    Mr. McGinn. I am not familiar with the official costs and, if 
confirmed, will work diligently with the operators in the Navy and 
Marine Corps to determine priority investments for the Department.

    16. Senator Inhofe. Mr. McGinn, do you know what is says about the 
national security implications of climate change, energy independence, 
and a domestic reliance on fossil fuels?
    Mr. McGinn. While the Defense Strategic Guidance does not directly 
address the security implications of climate change, energy 
independence and domestic reliance on fossil fuels, it does address the 
need to maintain an adequate industrial base and our investment in 
science and technology as these do contribute to our overall security 
posture.

    17. Senator Inhofe. Mr. McGinn, if confirmed, would you be 
committed to promoting the core defense priorities for the Department 
of the Navy in support of the Defense Strategic Guidance?
    Mr. McGinn. If confirmed, I will support the priorities of the 
President, the Secretary of Defense, and the Secretary of the Navy as 
expressed in multiple defense policy and guidance documents.

           supposed military capabilities of the green fleet
    18. Senator Inhofe. Mr. McGinn, the committee specifically asked 
you in advance for your view, given your impressive Navy career and 
military expertise, how the bulk use of alternative drop-in replacement 
fuels improves the military capabilities of the fleet. You responded: 
``In addition to reducing reliance on foreign sources of energy, `drop-
in' fuels would not require any infrastructure or operational changes 
to bring on line.''
    How exactly does your answer translate into an enhanced or improved 
military capability for Navy ships, planes and submarines?
    Mr. McGinn. Liquid alternative fuels are not being considered as a 
drop-in replacement for our nuclear-powered submarine fleet. However, 
for our ships, vehicles and aircraft, a drop-in alternative fuel will 
provide strategic and operational benefits by providing commanders with 
additional refueling resources to help dampen the volatility of fossil 
fuel prices that now strain our operational readiness budgets.

    19. Senator Inhofe. Mr. McGinn, in your view, should Navy 
investments in alternative fuels be justified with the same rationale 
that led the Navy to invest billions in the development of nuclear 
powered ships?
    Mr. McGinn. While I fully support the Department's efforts to 
invest in alternative liquid fuel supplies, especially from multiple 
feedstocks, I do not believe the costs of that investment will be on 
the same scale, nor for the same strategic rationale, as past 
investments in nuclear energy.

                  the fallacy of fuel price volatility
    20. Senator Inhofe. Mr. McGinn, you responded to an advance policy 
question about the national security implications of a dependence on 
fossil fuels by noting that, ``Fossil fuels, whether imported or 
domestically produced, are subject to price volatility and uncertainty 
of supply. Deriving fuels from other than petroleum sources adds to the 
supply and helps mitigate fluctuating prices.'' Given the fact that the 
use of ethanol over the last 15 years has not affected the volatility 
of petroleum prices, what analysis do you have that supports your 
assertion?
    Mr. McGinn. The use of ethanol for transportation fuel in the 
United States has played an important role in accounting for about 10 
percent of our domestic gasoline supply mix. Incorporating ethanol in 
our gasoline supply acts as a useful blending component and expands 
supply diversity. Diversity of supply helps to cushion our exposure to 
the price fluctuations and volatility driven by the dynamics of a 
global market.

    21. Senator Inhofe. Mr. McGinn, to what degree of confidence do you 
have that DOD investments in the development of alternative fuels will 
directly result in a reduction in the volatility of petroleum prices?
    Mr. McGinn. I am confident that our investments in alternative 
fuels will increase the overall supply and diversity of liquid fuel 
products suitable for use in our ships, vehicles and aircraft, and 
thereby helping to cushion our exposure to the price fluctuations and 
volatility driven by the dynamics of a global market.

    22. Senator Inhofe. Mr. McGinn, do you assume that a demand for 
alternative fuels will not result in the same type of price volatility?
    Mr. McGinn. I believe that the price of every commodity can rise 
and fall in response to supply and demand. As a major consumer of 
liquid fuel vital to our national security, DOD would greatly benefit 
from a competitive, domestic renewable fuel industry capable of 
broadening the fuel supply base by using multiple feedstocks.

                    pending land withdrawal requests
    23. Senator Inhofe. Mr. McGinn, one of the top priorities for the 
Department of the Navy this year is to renew or initiate a series of 
land withdrawals for ranges supporting the Navy and Marine Corps, 
including the expansion of the combat center range Marine Corps Base, 
Twentynine Palms, CA. Can you provide for the record your personal 
assessment of the need for these withdrawals?
    Mr. McGinn. As a Naval Aviator with 35 years of active service and 
command experience at the squadron, carrier, and fleet level, I 
understand the critical need to conduct realistic, coordinated live 
fire training and to train like we fight. I cannot overstate the 
importance of renewing the land withdrawals at the Chocolate Mountain 
range and the test center at China Lake, as well as expanding the 
combat center range at Marine Corps Base, Twentynine Palms. These three 
training and testing installations are vital to maintaining our current 
readiness and to ensuring we are ready to fight and win our Nation's 
wars.

                                  guam
    24. Senator Inhofe. Mr. McGinn, on the issue of billions of dollars 
planned for investment on Guam, do you support this committee's 
position that U.S. or Japanese funds should not be spent until we have 
a clear and detailed assessment of the plans and costs for the laydown 
of marines in Guam and Hawaii?
    Mr. McGinn. The realignment of marines to Guam is the right 
strategic move to support the United States posture in the Pacific. A 
construction effort of this size will take over 10 years to complete. 
While it is prudent to understand the entire plan and costs, I believe 
it makes sense to start now on projects for which all required 
environmental planning is complete, in order to prepare for a larger 
construction surge when the final planning and environmental studies 
are complete. Starting some of these projects will reinforce our 
commitment to allies in the region and will help facilitate our 
negotiations with the Government of Japan on continued funding for the 
realignment.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                        installation maintenance
    25. Senator Ayotte. Mr. McGinn, there has been a significant impact 
on facility sustainment because of sequestration and an additional cut 
of $53 billion in fiscal year 2014 will further degrade important 
facilities. Deferred facility repairs are not savings, but an 
assumption of greater risk that contributes to lower military 
readiness. How will you recover deferred repairs at critical facilities 
accumulated in 2013?
    Mr. McGinn. I understand that facility sustainment accounts were 
hit hard due to sequestration in fiscal year 2013. I agree that 
deferred facility maintenance comes with risk of higher repair bills in 
the future. To recover from deferred repairs, the Navy will have to be 
prudent when deciding how to expend diminishing resources to strike the 
right balance between operational requirements and risk to our shore 
infrastructure.

    26. Senator Ayotte. Mr. McGinn, can you describe specific impacts 
to installations, environment, and energy programs if sequestration 
continues into 2014?
    Mr. McGinn. If sequestration continues into 2014, I expect there 
will be similar reductions in funding for facility sustainment and base 
operations and support accounts. These continued reductions would have 
a compounding impact on the state of our facilities. At this time, I 
cannot describe any specific cuts or impacts. If confirmed, one of my 
highest priorities will be to understand the impacts of sequestration 
on the entire energy, installations, and environment portfolio and to 
ensure we are evaluating every investment to balance current and future 
readiness with risk to our shore infrastructure.

                         navy facility backlog
    27. Senator Ayotte. Mr. McGinn, in April, the Navy submitted an 
investment plan for the modernization of Naval Shipyards required by 
the National Defense Authorization Act for Fiscal Year 2012. The report 
indicated that the overall condition of the infrastructure is below the 
Navy average, and there is a $3.5 billion maintenance backlog 
associated with infrastructure, which includes $1.2 billion in 
deficiencies at mission essential facilities. The report also stated 
that the Navy will need about 17 years, at current funding rates, just 
to clear the current maintenance backlog. The Navy is examining ways to 
accelerate facility investment to fix the backlog under a 10-year plan. 
Do you know what additional annual funding you will need to achieve 
this goal?
    Mr. McGinn. Materiel readiness is a key enabler to maintaining 
freedom of the seas. I am aware of the investment plan and the Navy's 
commitment to address the backlog. I don't know what specific level or 
type of additional funding would be required to accelerate the plan. If 
confirmed, I will advocate for and work with the Chief of Naval 
Operations and the Assistant Secretary of the Navy (Research, 
Development, and Acquisition) to ensure that whatever funding may be 
available for shore infrastructure, including shipyards and depots, is 
allocated appropriately to meet mission critical needs.

    28. Senator Ayotte. Mr. McGinn, how will sequestration in 2013 and 
2014 affect this plan?
    Mr. McGinn. I can't address any specific impacts to the plan from 
sequestration in 2013. If sequestration continues into 2014, it will 
challenge investments across the entire Energy, Installations and 
Environment portfolio. When faced with reduced resources, any 
organization, whether a business or a household, must assess its short- 
and long-term objectives and make prudent expenditures and investments 
accordingly. I believe the same holds true for the Department of the 
Navy. If confirmed, one of my highest priorities will be to understand 
the impacts of sequestration on the entire Energy, Installations, and 
Environment portfolio and to ensure we are evaluating every investment 
to balance current and future readiness with risk to our infrastructure 
investments across a broad array of requirements.

                             family housing
    29. Senator Ayotte. Mr. McGinn, I am troubled about recent reports 
regarding concerns expressed by residents at Admiralty Village--a 
public-private family housing facility that supports personnel working 
at Portsmouth Naval Shipyard. Some residents have expressed concerns 
regarding black mold that may be causing health problems in residents, 
water dripping from ceiling light fixtures, and old appliances that are 
leaking gas. I want to make sure Captain William Greene, Commander at 
Portsmouth Naval Shipyard, is receiving all of the support and 
resources he needs from the Navy in order to address this problem. Are 
you aware of these reports and if confirmed, will you ensure that 
Captain Greene, and commanders like him around the Navy, receive the 
support and resources they need to ensure our military families have 
military housing that is worthy of their service?
    Mr. McGinn. I am aware of the reports in the press regarding 
Admiralty Village and I share your concern for the safety and well-
being of our servicemembers. If confirmed, I will ensure our commanders 
have the support and resources they need to provide the highest quality 
living and working conditions for our sailors, marines, and their 
families.
                                 ______
                                 
    [The nomination reference of Mr. Dennis V. McGinn follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      July 9, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dennis V. McGinn, of Maryland, to be an Assistant Secretary of the 
Navy, vice Jackalyne Pfannenstiel, resigned.
                                 ______
                                 
    [The biographical sketch of Mr. Dennis V. McGinn, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
        Biographical Sketch of VADM Dennis V. McGinn (USN, ret.)
Education:
    U.S. Naval Academy

        <bullet> 1963-1967
        <bullet> B.S. degree in naval engineering 1967

    Kennedy School of Government, Harvard University

        <bullet> National security program
        <bullet> 1998

    U.S. Naval War College

        <bullet> Chief of Naval Operations Strategic Studies Fellow
        <bullet> 1990-1991
Employment record:
    American Council On Renewable Energy (ACORE)

        <bullet> President and CEO
        <bullet> May 2011-Present

    Remote Reality

        <bullet> CEO and Chairman
        <bullet> Jan. 2008-Present

    Battelle Memorial Institute

        <bullet> Corporate Officer, Energy, Transportation and 
        Environment Division
        <bullet> 2002-2007

    U.S. Navy: 1967-2002

        <bullet> Naval aviator, test pilot, aircraft carrier commanding 
        officer, national security strategist
        <bullet> Deputy Chief of Naval Operations for Warfare 
        Requirements and Programs at the Pentagon
        <bullet> Commander of U.S. Third Fleet
Honors and awards:
    Air Medal (three awards)
    Navy-Marine Corps Commendation Medal (eight awards, all with Combat 
V)
    Distinguished Flying Cross (two awards)
    Meritorious Service Medals (one award)
    Legion of Merit (four awards)
    Defense Superior Service medal (one award)
    Distinguished Service Medal (one award)
Boards:
    CNA Military Advisory Board

        <bullet> Vice Chairman
        <bullet> 2007-Present

    Rocky Mountain Institute

        <bullet> International Security Senior Fellow
        <bullet> 2002-Present

    Energy Future Coalition

        <bullet> Steering Committee Member
        <bullet> 2011-Present

    National Conference on Citizenship

        <bullet> Director, Chairman of Strategy Committee
        <bullet> 2005-Present

    U.S. Energy Security Council

        <bullet> Member
        <bullet> 2011-Present

    Bipartisan Policy Center

        <bullet> Energy Board Member
        <bullet> Jan. 2012-Mar. 2013
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. Dennis V. 
McGinn in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Dennis Vincent McGinn.

    2. Position to which nominated:
    Assistant Secretary of the Navy for Energy, Installations, and 
Environment.

    3. Date of nomination:
    July 9, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 26, 1945; Attleboro, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Susan Kelly (Harris) McGinn.

    7. Names and ages of children:
    John McGinn, 45.
    David McGinn, 43.
    Daniel McGinn, 37
    Susan Yekstat, 36.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    U.S. Naval Academy, 1963-1967, B.S., June 7, 1967.
    U.S. Naval Test Pilot School, 1973-1974
    U.S. Naval War College, 1990-1991, CNO Fellow

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    President/CEO, American Council on Renewable Energy, 1600 K St., 
NW, Washington, DC, 2011-Present
    CEO and Chairman, RemoteReality, Inc, 1700 West Park Drive, 
Westborough, MA, 2008-Present
    Senior Vice President, Energy, Transportation, Environment, 
Battelle Memorial Institute, 505 King Ave, Columbus, OH, 2003-2007
    Schott North American, 2451 Crystal Drive, Arlington, VA, 22202, 
2011-2012

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member of the Department of Energy Electricity Advisory Board, 
2012-present
    National Commission on Disabled Veterans Benefits, Member, 2004-
2007

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    American Council on Renewable Energy, President/CEO, 2011-present
    Remote Reality Corporation, Chairman and CEO, 2008-present
    Member of the CNA Military Advisory Board, 2007-present

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    National Conference on Citizenship, Director and Chair of Strategy 
Committee, 2005-Present
    Naval Institute, Member, 1970-Present. Chairman of the Board, 2001-
2002
    American Renewable Energy Institute, Director, 2012-Present

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Personal military awards during service with U.S. Navy, 1967-2002:

         Air Medal (three awards)
         Navy-Marine Corps Commendation Medal (eight awards, All with 
        Combat V)
         Distinguished Flying Cross (one award)
         Meritorious Service Medals (one award)
         Legion of Merit (four awards)
         Defense Superior Service medal (one award)
         Distinguished Service Medal (two awards)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Reports (Co-Authored):

        <bullet> America's Energy Resurgence: Sustaining Success, 
        Confronting Challenges, Bipartisan Policy Center, February 27, 
        2013
        <bullet> Ensuring America's Freedom of Movement: A National 
        Security Imperative to Reduce U.S. Oil Dependence, CNA Military 
        Advisory Board, October 2011
        <bullet> Powering America's Economy: Energy Innovation at the 
        Crossroads of National Security Challenges, CNA Military 
        Advisory Board, July 2010
        <bullet> Powering America's Defense: Energy and the Risks to 
        National Security, CNA Military Advisory Board, May 2009

    Op-Eds/Blog Submissions:

        <bullet> American Renewable Energy Is Powering the American 
        Energy Transformation (The Hill, July 4, 2013 reprinted by 
        Huffington Post, July 9, 2013)
        <bullet> Level the Playing Field for Renewables (Politico, June 
        24, 2013)
        <bullet> ACORE Salutes Tesla for Repaying Loan Guarantee Nine 
        Years Early, Showing Success of LGP Program (States News 
        Service, May 23, 2013)
        <bullet> Congress Can Jolt Renewable Energy (National Journal 
        Energy Experts Blog, April 29, 2013)
        <bullet> More Renewables for States (Politico, April 4, 2013)
        <bullet> Bullish on Biofuels (National Journal Energy Experts 
        Blog, March 29, 2013)
        <bullet> Opinion: Dennis McGinn of ACORE (Recharge, March 4, 
        2013)
        <bullet> The Year For Bipartisan Energy Policy (National 
        Journal Energy Experts Blog, January 9, 2013)
        <bullet> Long Term Thinking For PTC (National Journal Energy 
        Experts Blog, December 17, 2012)
        <bullet> Jobs and Manufacturing At Stake (National Journal 
        Energy Experts Blog, December 12, 2012)
        <bullet> Together We Move Forward (National Journal Energy 
        Experts Blog, November 14, 2012)
        <bullet> Get Past Politics and Back to Business (National 
        Journal Energy Experts Blog, November 5, 2012)
        <bullet> A Real ``All ofthe Above'' Strategy (National Journal 
        Energy Experts Blog, October 17, 2012)
        <bullet> The Supply and Demand of Renewable Energy (Huffington 
        Post, September 26, 2011)

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have delivered several speeches and interviews over the past 5 
years related to energy, economic and environmental security in the 
context of national security. I do not retain hard copies but speak 
from notes.
    I also have a record of written and oral testimony all of which 
included in the Congressional Record.
    Specifically, I testified before the House Select Committee on 
Energy Independence and Global Warming on 1 December 2010 and 18 April 
2007. I testified before the Senate Environment and Public Works 
Committee on 28 October 2009 and 30 July 2009. I testified before the 
Senate Foreign Relations Committee on 21 July 2009. The topic of my 
testimony in each instance was relevant to the position for which I 
have been nominated.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to Congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             Dennis Vincent McGinn.
    This 23rd day of July, 2013.

    [The nomination of Mr. Dennis V. McGinn was reported to the 
Senate by Chairman Levin on July 30, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 1, 2013.]


  NOMINATIONS OF ADM CECIL E.D. HANEY, USN, FOR REAPPOINTMENT TO THE 
 GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. STRATEGIC COMMAND; AND LTG 
CURTIS M. SCAPARROTTI, USA, TO BE GENERAL AND COMMANDER, UNITED NATIONS 
           COMMAND/COMBINED FORCES COMMAND/U.S. FORCES KOREA

                              ----------                              


                         TUESDAY, JULY 30, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman), presiding.
    Committee members present: Senators Levin, Reed, Udall, 
Blumenthal, Donnelly, Kaine, King, Inhofe, McCain, Chambliss, 
Ayotte, and Fischer.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan S. Epstein, 
counsel; Ozge Guzelsu, counsel; Richard W. Fieldhouse, 
professional staff member; Gerald J. Leeling, general counsel; 
Mariah K. McNamara, special assistant to the staff director; 
Russell L. Shaffer, counsel; and William K. Sutey, professional 
staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director; Steven M. Barney, minority counsel; William S. 
Castle, minority general counsel; Thomas W. Goffus, 
professional staff member; Anthony J. Lazarski, professional 
staff member; Daniel A. Lerner, professional staff member; and 
Robert M. Soofer, professional staff member.
    Staff assistants present: Lauren M. Gillis and Daniel J. 
Harder.
    Committee members' assistants present: Jeff Fatora, 
assistant to Senator Nelson; Casey Howard, assistant to Senator 
Udall; David LaPorte, assistant to Senator Manchin; Marta 
McLellan Ross, assistant to Senator Donnelly; Karen Courington, 
assistant to Senator Kaine; Steve Smith, assistant to Senator 
King; Paul C. Hutton IV, assistant to Senator McCain; Lenwood 
Landrum, assistant to Senator Sessions; Todd Harmer, assistant 
to Senator Chambliss; Brad Bowman, assistant to Senator Ayotte; 
and Peter Schirtzinger, assistant to Senator Fischer.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets this morning to consider military 
nominations for two critically important command assignments. 
We welcome Admiral Cecil Haney who is nominated to be 
Commander, U.S. Strategic Command (STRATCOM) and Lieutenant 
General Curtis Scaparrotti who is nominated to be Commander, 
United Nations (U.N.) Command, Combined Forces Command, and 
U.S. Forces Korea (USFK). Thank you both for your decades of 
service to our Nation and for your willingness to continue to 
serve in these positions of great responsibility.
    We would also like to welcome and to thank your family 
members, some of whom are here this morning. Our military 
families are essential to the overall success and the well-
being of our Armed Forces, and we appreciate greatly their many 
sacrifices, particularly during the course of long military 
careers. In this regard, as is the tradition of this committee, 
we invite each of you, during your opening remarks, to 
introduce the family members or others who are here with you 
this morning.
    It is most appropriate that these nominees appear together 
because the responsibilities of the positions to which they 
have been nominated intersect, particularly as they relate to 
the security situation on the Korean Peninsula and the 
potential threats from North Korea.
    Unfortunately, as has been evident from the words and 
actions from North Korea in the last several months, the 
leadership change in North Korea, occasioned by the death of 
longtime dictator Kim Jong-il, has not yet resulted in any 
meaningful, positive change in North Korea's policies. North 
Korea continues its reckless pursuit of ballistic missiles, 
nuclear weapons, and continues to threaten its neighbors and 
the overall peace and stability in the region. The regime 
remains determined to defy the international community to the 
detriment of its own prosperity and growth and with little 
concern for the well-being of its own people.
    STRATCOM is responsible for our deployed nuclear 
deterrence, integrating global missile defense, managing 
military space systems, and countering weapons of mass 
destruction. STRATCOM also oversees Cyber Command, a sub-
unified command tasked with managing military operations in 
cyberspace, and is charged with coordinating the Department of 
Defense's (DOD) electromagnetic spectrum. If confirmed, Admiral 
Haney will be a key player in the overall strategic posture and 
policy of the United States.
    Admiral, we will be interested in your views on the U.S. 
nuclear employment strategy, your priorities for missile 
defense, and the status of Cyber Command. With regard to North 
Korea in particular, we would be interested in your thoughts on 
the various steps announced earlier this year by Secretary 
Hagel to improve Homeland missile defense capability, including 
the planned deployment of 14 additional ground-based 
interceptors (GBI) in Alaska by 2017.
    Lieutenant General Scaparrotti is currently the Director of 
the Joint Staff where he assists the Chairman and Vice Chairman 
of the Joint Chiefs of Staff with many of the most challenging 
issues facing our military and our country today. If confirmed, 
he will bring his breadth of experience to bear on maintaining 
a military force on the Korean Peninsula that is ready, 
willing, and able to respond to any aggression from North 
Korea. General, we would be interested in your assessment of 
the security situation on the peninsula, the posture of U.S. 
Forces there, and the plan for the transfer of wartime 
operational control from the United States to the South Koreans 
in December 2015.
    Admiral and General, we again welcome you today. We look 
forward to your testimony.
    I now call on Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    I join you in welcoming General Scaparrotti and Admiral 
Haney. I thank both of you for the time that you have spent 
coming over in personal visits.
    General Scaparrotti, you have been nominated to replace 
General Thurman as Commander of the U.S. Forces in Korea, and 
General Thurman and the men and women under his command have 
done a tremendous job in standing with our South Korean 
partners to ensure stability in the Korean Peninsula.
    However, this stability is at risk. Tensions over the last 
year have risen dramatically, and as a result, Kim Jong-un's 
belligerent behavior, including the testing of nuclear weapons 
and launching of ballistic missiles, his provocative actions 
threaten to overturn the peace, stability, and prosperity of 
the entire region.
    Our military capabilities in the region must be designed to 
deter North Korean aggression, but should deterrence fail, it 
has to be ready to punish aggression, to protect vital U.S. 
interests, partners, and allies. However, I am greatly 
concerned that further defense cuts under the sequestration 
will put these capabilities at risk, undermine our influence in 
the region, and will encourage Kim Jong-un's reckless behavior.
    Admiral Haney, you have been nominated to serve as the next 
Commander of STRATCOM. If confirmed, your principal 
responsibility will be to ensure the effectiveness of our 
Nation's nuclear deterrent force. This requires a credible 
nuclear strategy backed by capable nuclear forces. There is 
cause for concern in both respects. Not only are our nuclear 
modernization programs facing funding cuts and increasing 
schedule delays, but the President's insistence on reducing the 
role and number of nuclear weapons could also undermine 
deterrence and make our allies nervous.
    The current Commander of STRATCOM told Congress earlier 
this year that as the sequester impacts continue to grow, he 
said, ``Reduced readiness and curtailed modernization damage 
the perceived credibility of our capabilities, increasing the 
risks to achieve our primary deterrence and assurance 
objectives.'' These cuts are likely to have real negative 
consequences on our ability to deal with the crisis around the 
world which, in turn, may increase rather than reduce the role 
of nuclear weapons in our national security strategy.
    We also face a growing and increasingly complex threat with 
cyberspace, and despite the reality, this administration has 
failed to implement an effective cyber deterrence strategy that 
dissuades those seeking to hold our economic and national 
security interests at risk in cyberspace. While the White House 
has been quick to blame Congress on the need for cyber 
legislation, it has been slow in developing and implementing 
the far more important strategy for exposing, countering, and 
deterring our adversaries.
    Finally, the Department is currently debating the elevation 
of the Cyber Command from its current position under STRATCOM 
to become its own unified command. We will want to talk about 
that, and I look forward to your comments.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Admiral Haney?

 STATEMENT OF ADM CECIL E.D. HANEY, USN, FOR REAPPOINTMENT TO 
   THE GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. STRATEGIC 
                            COMMAND

    Admiral Haney. Mr. Chairman, Senator Inhofe, and 
distinguished members of the committee, thank you for the 
opportunity to come before you today. It is my sincere honor to 
appear as the nominee to lead STRATCOM.
    I am honored to be here also with some of my family 
members. First, my wife Bonnie, who sits behind me here, has 
been with me throughout my military career, and has raised 
three wonderful children who could not be here today. She is 
also representative of all the spouses that support our 
military servicemembers.
    Second, my sister, Dr. Yvonne Coates is here, who has 
worked tirelessly in my hometown, Washington, DC, here as a 
public school educator for many years.
    Our All-Volunteer Force is sustained by our families that 
support us and allow us to serve.
    I am also honored to be here with Lieutenant General 
Scaparrotti.
    I would like to thank the President and the Secretary of 
Defense for nominating me. I also thank the Chairman of the 
Joint Chiefs of Staff for expressing his confidence in my 
ability to serve as a combatant commander. If so confirmed, I 
look forward to working with this committee to address the 
strategic challenges that face our Nation. They are complex and 
compelling, and STRATCOM plays a key role in each. I know that 
this committee knows and respects the strategic challenges we 
face today and the ones over the horizon that must be 
addressed. Complex threats provide opportunities for terrorism 
and raise significant security concerns. We must address 
nuclear issues today to include both state and non-state 
actors, proliferation, and weapons of mass destruction.
    Space, though a vast operational area, is a complex 
environment that is competitive, congested, and contested. 
Addressing the cyber threat is critical to our national 
security. Intensive and extensive cooperation across the whole 
of government and the governments of our allies, partners, and 
friends is required to prepare for and respond to these 
developments. Our ability as a Nation to shape events to our 
interests will continue to depend on the skill and dedication 
of the great men and women who serve our Nation.
    Leading STRATCOM is a significant responsibility and a 
unique opportunity. If confirmed, I pledge to you that I will 
devote all of my energy, commitment, and focus to address these 
challenges.
    I am very fortunate to have had assignments to include 
operational experiences and command opportunities that align 
with STRATCOM's mission set. I believe they have prepared me 
for this challenge. If confirmed, I will also be fortunate and 
deeply humbled to follow the paths blazed by some of our truly 
great national leaders that have mentored me such as Admiral 
Hank Chiles and Rich Mies and General Kevin Chilton, prior 
commanders of STRATCOM who have helped in shaping my intellect, 
experiences, and understanding. I also want to thank the 
current Commander, General Bob Kehler, whose leadership has 
been deeply important in these past critical years to shaping 
our national posture, and I am grateful to have served with him 
as his deputy.
    Of course, as always, if confirmed, I look forward to 
working with and caring for the world's best soldiers, sailors, 
airmen, marines, and civilians and their families.
    Mr. Chairman, Senator Inhofe, distinguished committee 
members, it is a privilege to be before you here today, and I 
look forward to your questions.
    Chairman Levin. Admiral, thank you very much.
    General?

STATEMENT OF LTG CURTIS M. SCAPARROTTI, USA, TO BE GENERAL AND 
COMMANDER, UNITED NATIONS COMMAND/COMBINED FORCES COMMAND/U.S. 
                          FORCES KOREA

    General Scaparrotti. Chairman Levin, Senator Inhofe, and 
other distinguished members of the Senate Armed Services 
Committee, I thank you for the opportunity to appear here 
today, and I also want to thank you for the support that you 
have provided to our servicemembers, our Department of Defense 
civilians, and their families who selflessly serve in the 
defense of our great Nation and defense of our way of life.
    I would also like to thank the Secretary of Defense and the 
President for their trust and confidence and for nominating me 
to be the next Commander for United Nations Command, Combined 
Forces Command, and U.S. Forces Korea.
    If confirmed, I look forward to working closely with this 
committee, with our civilian and military leadership, and with 
Republic of Korea military and civilian leadership to advance 
our national interests and to address the opportunities and 
challenges in the Korean theater.
    If confirmed, I commit to the servicemembers serving in 
Korea that I will do all that I can to ensure their readiness 
for the mission and to provide the support that they and their 
families deserve. I look forward to working with this committee 
to realize this commitment.
    Finally, I would like to introduce and thank my wife Cindy, 
who is here with me today. She has been by my side for nearly 
34 years and has been an essential part of my service. Cindy 
has supported me during multiple deployments, cared actively 
for our servicemembers and their families, and raised our 
children.
    Also with me today, Stephanie, our youngest child, is here 
with her husband, Captain Luke High, presently a company 
commander in the 82nd Airborne Division. They have given us two 
grandchildren, Ava and Jacob. My son Michael, who could not be 
here today, lives and works in Ann Arbor, MI.
    I am blessed with this family who has given so much, like 
other military families, so that I may serve.
    I thank the committee again for the opportunity to appear 
today, and I look forward to your questions.
    Chairman Levin. Thank you very much, General.
    We now ask our witnesses standard questions, and you can 
respond together to these questions.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Admiral Haney. I have.
    General Scaparrotti. I have.
    Chairman Levin. Do you agree, when asked, to give your 
personal views even if those views differ from the 
administration in power?
    Admiral Haney. I do.
    General Scaparrotti. I do.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Haney. No, sir.
    General Scaparrotti. No.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Admiral Haney. I will.
    General Scaparrotti. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Haney. I will.
    General Scaparrotti. I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Admiral Haney. They will.
    General Scaparrotti. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Admiral Haney. I do.
    General Scaparrotti. I do.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Admiral Haney. I do.
    General Scaparrotti. I do.
    Chairman Levin. Thank you.
    Let us have a 7-minute round this morning to start with for 
our first round of questions.
    Admiral, let me ask you about the New Strategic Arms 
Reduction Treaty (START) which is now being implemented. It was 
ratified in the Senate in December 2010. Do you support the New 
START treaty?
    Admiral Haney. Senator, yes, I do.
    Chairman Levin. On the question of missile defense, in your 
answers to the prehearing policy questions, Admiral, about the 
idea of possibly deploying a future east coast missile defense 
site, you made several important points as follows.
    First, you said you support proceeding with the 
environmental impact statement process that we required in last 
year's law in order to inform future decisions about such a 
site.
    Second, you said you agree with General Dempsey and Admiral 
Winnefeld that additional analysis is needed, including 
analysis of the missile threat from Iran, before making a 
decision on whether to deploy such a site in the future.
    Third, you said you agree with the assessment of Vice 
Admiral Syring and Lieutenant General Formica on the importance 
of enhancing our future missile defense sensor and 
discrimination capability, which they see as a more cost 
effective and less expensive near-term alternative to deploying 
an east coast site.
    Can you explain this issue of sensor and discrimination 
capabilities and how they would benefit our Homeland defense?
    Admiral Haney. Senator, thank you for that question.
    As we work missile defense and look to the future, it is 
very important that we are able to discriminate what is coming 
at us, whether it is a decoy, whether it is a warhead, and be 
able to address that threat at the right opportunity with our 
missile defense capability. As we look at prioritizing our 
efforts, it is so important that we invest properly in the 
sensing part of this because that way we can balance the 
equation of our concept of operations and how we address the 
threat missile per missile.
    Chairman Levin. Admiral, in the missile defense area, 
Secretary Hagel and other senior leaders have said that before 
we deploy any more GBIs, we will first have to conduct 
successful intercept flight testing to demonstrate that they 
will work as intended.
    Do you agree that we need to make sure that the ground-
based midcourse defense system, including both the CE1 and the 
CE2 kill vehicles, and demonstrate the success of the system in 
intercept flight test before we deploy any more GBIs?
    Admiral Haney. Senator, I think it is important that we 
continue to deploy our CE1s, which have been proven through 
tests. I also think it is important that we fly before we buy 
as we look at the CE2 variant so that we can assure we have the 
reliability that is required in order to address the threats 
now and into the future.
    Chairman Levin. General, relative to Korea, I believe it is 
important that we see to it that the primary responsibility for 
defending South Korea during a time of war lies with South 
Korea and that the responsibility for wartime operational 
control be turned over to the South Koreans as soon as 
practicable. It is a sovereign nation and sovereign nations 
should be responsible for their own national defense in time of 
war, particularly after the length of time that they have been 
gaining in capability.
    Right now, the plan for the transfer of wartime operational 
control to the Republic of Korea is set for no later than 2015. 
Do you agree with that timetable?
    General Scaparrotti. Senator, thank you.
    Yes, I do agree with the timetable. It is a bilateral 
agreement, Strategic Alliance 2015, to turn over operational 
control by December 2015. I think it is a good plan and it 
includes milestones that ensure the capability and our 
integration of forces together to provide the readiness that is 
needed on the peninsula at the time of that transition. I think 
we should move forward with it.
    Chairman Levin. Will you do everything you can, if 
confirmed, to ensure that the transfer is not delayed any 
further? It has been delayed two or three times before.
    General Scaparrotti. Yes, sir. If confirmed, I will do 
everything possible to ensure that we stay on track with 
Strategic Alliance 2015.
    Chairman Levin. Now relative, General, to Camp Humphreys, 
the Army has proposed a public/private venture to build family 
housing called the Humphreys Housing Opportunity Project 
(HHOP). Essentially private developers would build the housing 
complex and DOD would pay rent in the form of an overseas 
housing allowance (OHA) for servicemembers that live in the 
units.
    The problem is that the Army has proposed a rental rate of 
$3,900 per unit per month, which represents a huge increase in 
the housing allowance rate for servicemembers assigned to the 
Camp Humphreys area, a rate which currently averages around 
$1,500 per month. If HHOP were built as planned, a soldier 
assigned to Camp Humphreys and living off base would receive on 
average about $1,500 per month while a soldier living in HHOP 
housing would receive on the average $3,900.
    The committee's analysis suggests that the rent paid to the 
private developer for HHOP units would cost $630 million more 
than the standard overseas housing rate over 20 years. 
Moreover, the approval of that higher rate would set a very 
troubling precedent by using personnel pay accounts to finance 
a military construction project where the project costs are 
considered too high to be funded through military construction 
accounts.
    Now, in the current budget environment, it is hard for me 
and a number of other members of this committee to see a 
persuasive rationale for a plan that would commit the United 
States to pay out of DOD personnel accounts an OHA rate two and 
a half times greater than what has been determined to be 
reasonable in the Camp Humphreys area and that would then cause 
this inflated cost to be included in the personnel accounts 
over the next 20-plus years.
    I do not know whether you have had a chance to review this 
project or not, General, but first, if you have a comment, 
would you share it with us? In any event, will you get back to 
us with a more detailed assessment?
    General Scaparrotti. Sir, I have reviewed the Senate Armed 
Services Committee's review of this issue, and I have taken a 
look at U.S. Forces Korea's review of the issue. If confirmed, 
I will take a close look at this issue and consider other 
options to ensure that we can care for our command-sponsored 
families, as well as maintain the readiness that we need in the 
Peninsula. I will come back to the committee, if confirmed.
    Chairman Levin. Thank you very much.
    Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    Admiral Haney--well, both of you. One of the problems we 
have in confirmation hearings is it is hard to get answers when 
they have not assumed that position yet, but you both have a 
background in the positions that you are going to be moving to. 
I think you are both excellent choices for those positions.
    Admiral Haney, you had stated in response to the chairman 
here, his question about whether you supported the New START 
treaty, and you said that you did. I have to say that I did 
not.
    I look at the New START treaty--and there were a lot of 
commitments that were made at that time in order to get the 
votes necessary to pass it. It was a close call in the U.S. 
Senate. Recently, General Kehler said, ``I remain concerned 
that maintaining a safe, secure, and effective deterrent 
requires a substantial modernization effort that comes in the 
midst of a very difficult financial period.'' Modernization is 
what we were talking about. That was a commitment that was made 
that has not yet reached its fruition in terms of modernizing. 
I am concerned about this.
    The other concern I had about the START 10 treaty was in 
the area of the tactical nuclear weapons. Now, would you have 
supported it more had that been included in terms of the ratio 
or the numbers of tactical nuclear weapons that Russia has as 
opposed to what we have? The ratio is about 10 to 1. What is 
your feeling about the tactical nuclear weapons?
    Admiral Haney. Senator Inhofe, as you have addressed, 
modernization is important to us, and I would hope that we can 
continue to do the modernization of weapon warheads, platforms, 
as well as the industrial base that supports it.
    With regards to the tactical nuclear weapons, as we went 
into New START and with any treaty, it is important that we are 
able to not just reduce but be able to also verify that the 
obligations per that agreement are, in fact, able to be carried 
out. We were able to do that from the basis of warheads, 
strategic warheads, as well as launchers in the New START 
treaty.
    Personally, I would love to see the world with less 
tactical nukes, nuclear weapons. The same type of rigor has to 
be in place in order to have an agreement by which we can 
reduce tactical nuclear weapons such that they are verifiable, 
negotiated where they make sense. I would not sit here and even 
attempt to debate the importance of the reduction of tactical 
nuclear weapons----
    Senator Inhofe. Yes, well, the question then was would you 
have supported it more vigorously if they had included the 
tactical nuclear weapons in the New START treaty?
    Admiral Haney. Senator, only if we had verifiable means by 
which we could verify both the other side, Russia, was carrying 
out an appropriate obligation.
    Senator Inhofe. Okay. The warheads are going to be reduced, 
I think 1,550. As we move down and we are reducing, it would 
seem to me that the modernization program is more important, as 
we are going through a reduction. Would you agree with that?
    Admiral Haney. Yes, Senator, I would agree.
    Senator Inhofe. Now, there has been some discussion about 
doing a unilateral reduction. I cannot remember the exact 
words, but it was whether they do or not. What is your feeling 
about a unilateral reduction that would be done outside of the 
treaty that would be addressed by this committee?
    Admiral Haney. Senator, I think it is very important that 
any further reductions are negotiated. Period.
    Senator Inhofe. That is good, and I agree with that.
    The chairman covered the CE1 and the CE2. I would only say 
that for us to be in a position where our GBIs are going to be 
where we want them to be, it is going to require more testing. 
Would you not agree with this?
    Admiral Haney. Senator, I absolutely support more testing.
    Senator Inhofe. All right.
    General Scaparrotti, we just returned not long ago from 
Korea. That is a tough one. You are dealing with a guy that is 
not a rational person. He does all these things that I 
mentioned in my opening statement. To start out with, would you 
think dealing with such a person as that, that our current 
strategy of diplomatic isolation and economic sanctions would 
stop someone like Kim Jong-un from acquiring a nuclear weapons 
capability?
    General Scaparrotti. Senator, I think that our present 
strategy is correct. I think that we have to be persistent and 
consistent with that strategy. I also believe that in terms of, 
if confirmed for the position that I will take there, I will 
have to do everything that I can in military-to-military 
relations in order to bring other countries in the region to 
bear as well. I think the more influence we have both in the 
region and internationally--and I will have an opportunity to 
help with that, if confirmed, as the Commander of the United 
Nations Command--will be helpful in our strategy as well. I 
share with you the concern about his uncertainty.
    Senator Inhofe. That is a kinder way of putting it than I 
would.
    I think when we are looking at sequestration, we are 
looking at budget cuts, and this does not happen in isolation. 
There will likely be a reduced carrier presence and U.S. 
warship presence in the Pacific. Do you think that makes 
someone like Kim Jong-un more likely to miscalculate or to be 
more militarily aggressive? What kind of reaction do you think 
he would have to our reduction of our fleet?
    General Scaparrotti. Senator, I think that the potential 
impacts of sequestration, in terms of the reduction of our 
naval forces, which you mentioned, would likely undercut our 
deterrence in his eyes and may lead at least to a greater 
possibility of miscalculation.
    Senator Inhofe. Yes. That is a scary thought.
    My time has expired, and I appreciate your response.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    Welcome, Admiral Haney and your family, and thank you for 
your service.
    General Scaparrotti, welcome and to your family. I have had 
the privilege of working with General Scaparrotti for about 10 
years now very closely from his days as commandant of cadets at 
West Point through the Commander of the 82nd Airborne Division. 
Thank you for your service, sir, and your family's.
    Admiral Haney, one of the issues that we face is 
modernization of our nuclear deterrence. My understanding is 
the bulk of our deterrent missiles are at sea now. Is that a 
fair estimate?
    Admiral Haney. Senator, that is a fair estimate in terms of 
warheads.
    Senator Reed. The modernization of our submarines, which 
deliver and launch those, potentially, missiles, is a key 
priority for the national defense in terms of the Ohio-class?
    Admiral Haney. Senator, the replacement of the Ohio SSBN is 
critical to our nuclear deterrent strategy and capability.
    Senator Reed. We are committed, I believe, to maintain the 
triad of air-launched missiles as well as ground-launched 
missiles, but since we have the bulk of our assets at sea in 
terms of warheads, that would seem to me to be sort of the 
first priority in terms of modernization of the delivery system 
at least. Is that consistent with your views and the strategy?
    Admiral Haney. Senator, first, the flexibility of having a 
triad is also very important to our deterrence strategy. Since 
the Ohio-class platform is nearing its end of life, it is very 
important that we replace it in addition to the calculus you 
just mentioned.
    Senator Reed. One of the things that is going to be 
required is support from the Department of Defense to do that 
because the issues you deal with cut across Service lines. 
There has to be, I think, a national commitment to 
modernization of the whole triad. But, again, since most of 
our--with no pun intended--eggs are in these submarines, we 
have to do that first and we have to do it with defense-wide 
resources. Is that your view too?
    Admiral Haney. Senator, it is not in my purview as far as 
how they are paid for in terms of defense-wide, but very 
important that we in fact move forward with that critical 
platform.
    Senator Reed. Thank you very much, Admiral.
    Just a final question. We are in the midst of a doctrinal 
shift similar to the late 1970s and early 1980s when we 
developed the air-land doctrine. Now it is the air-sea battle. 
You gentlemen will be in the midst of that. General Scaparrotti 
will be in Asia in South Korea, and the bulk of our pivot 
diplomatically and strategically is towards the Asia-Pacific 
area. The air-sea battle is comparable in terms of that 
doctrine.
    One of the key factors that we did not have to worry about 
quite as much back in the 1970s-1980s with the air-land battle 
was cyber. As part of your responsibility, are you fully worked 
in--you and your staff--with developing this new doctrine 
particularly when it comes to cyber?
    Admiral Haney. Senator, if I have your question right, you 
are asking relative to air-sea battle and cyber. I would say 
that the air-sea battle is a concept. It is a concept I work in 
my current capacity as the Commander of the Pacific Fleet 
across the Joint Services and with the Pacific Command 
Commander, Admiral Locklear, and his team. It includes all of 
our capabilities and effort to include cyber.
    Senator Reed. Let me go ahead and I will, for the record, 
ask additional questions on this point. But a concern I have is 
that, air power, sea power--we have been doing that for about 
200 years. This is a brand new, relatively speaking, dimension. 
It seems also, given what we have read in the press, that some 
of our potential competitors have very sophisticated asymmetric 
powers with respect to cyber. When we develop this air-sea 
battle--and it will pertain to General Scaparrotti too--we have 
to make sure that we can communicate, that we can command, we 
can control, et cetera. That might be the most key aspect of 
this new doctrine. I would hope that you and your command would 
be very much engaged in it.
    Let me turn to General Scaparrotti now. General, we have a 
series of joint exercises with the South Korean forces in Foal 
Eagle, Key Resolve, and others. Can you give me just a 
preliminary estimate of, one, their value and, two, your 
intentions going forward with these joint exercises?
    General Scaparrotti. Sir, these exercises, they are large, 
they are joint, they are combined. We do those regularly 
throughout the year. I think they are essential to the 
readiness that we need to maintain on the peninsula. I also 
think they are essential in terms of the integration that we 
are trying to attain and the improvement in both our forces and 
of Republic of Korea (ROK) forces. The very milestones that are 
laid out in Strategic Alliance 2015, for instance, can be best 
tested and developed through the use of those exercises because 
those are the times when we can bring together all of the 
Services as well as combined forces of both us and the ROK 
military.
    Senator Reed. Again, as has been mentioned before in 
previous questions, one of the key actors that influence the 
Korean Peninsula is China. Recently, they have made some 
statements or the statements have been attributed to them as 
suggesting to the world and to the North Koreans that their 
ultimate goal is denuclearization, which would be a positive 
step forward. Just in general, your view on their role and your 
view of how you can help facilitate the diplomacy between not 
just South Korea and the United States but South Korea, China, 
Japan, and the United States.
    General Scaparrotti. Yes, sir. I agree. I think China is 
key to the influence here on North Korea. As a part of my 
present duties as Director of the Joint Staff, I took part in 
the talks that were just held with China on economics and 
security, and they did make the commitment to a denuclearized 
peninsula.
    I think, if confirmed in my next duty, I have a 
relationship now that I have begun to establish with the deputy 
chief of staff of Chinese forces. They know me. Second, in 
terms of my position, if confirmed, I also have that military-
to-military relationship that I will develop with South Korea 
and with the other countries in the region. I think those 
military-to-military relationships are very important to 
progressing to our objective of denuclearization of the 
peninsula.
    Senator Reed. Thank you very much, sir. Thank you, 
gentlemen.
    Chairman Levin. Thank you, Senator Reed.
    Senator Ayotte?
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank you, Admiral Haney and General Scaparrotti, 
for your service and for the sacrifice of your families too. We 
appreciate it.
    I wanted to follow up, Admiral Haney, on the question that 
Senator Inhofe asked you about reduction of our nuclear 
deterrent and particularly our deployed strategic nuclear 
weapons.
    The President recently did announce that he was going to 
seek a one-third reduction of our deployed strategic nuclear 
weapons. It was not clear in his speech at all whether that was 
something that he would only accept through negotiated 
reductions with countries like Russia or whether this would be 
something he would consider doing unilaterally.
    If you were to seek to do that unilaterally, what would 
your advice be to him on a unilateral reduction of our nuclear 
deterrent?
    Admiral Haney. Senator, thank you for that question.
    My advice would be that we negotiate a bilateral agreement 
that also has verifiable components to it so that we can ensure 
that the said reduction would work.
    Senator Ayotte. Just to be clear, you would oppose a 
unilateral reduction?
    Admiral Haney. Senator, that is correct.
    Senator Ayotte. Thank you.
    How important do you believe it is before we seek any 
further reductions that we fulfill the modernization 
requirements of the New START treaty in section 1043? I know 
that you were well aware, of course, as the deputy commander of 
those requirements that you have already been asked about. How 
important do you believe that we fulfill that modernization 
requirement before we seek further reductions?
    Admiral Haney. Senator, I think it is very important that 
we modernize our industrial base in order to maintain and 
sustain the weapons that we have. Each will be even more 
critical as you reduce the number. It is so important that we 
have a secure and a safe and effective nuclear deterrent, and 
that industrial base supports that.
    Senator Ayotte. If we are continuing to diminish the 
resources toward our modernization efforts, which is 
essentially what is happening right now under the New START 
treaty, do you think it is advisable that we further reduce our 
nuclear deterrent without meeting those responsibilities?
    Admiral Haney. Senator, I think the reductions relative to 
the New START treaty, as agreed upon, is satisfactory. I 
believe from the knowledge I have--I do not currently work in 
that business, but from what I understand, for the fiscal year 
2014 budget, the President's budget supports the modernization 
of that industrial base. With sequestration, it is a question 
in my mind to how well we will be able to do that with further 
cuts across the board in all our accounts to include this 
modernization you mentioned.
    Senator Ayotte. My point is this, when the President 
announces that he is going to seek a third reduction, it seems 
to me that unless we further fulfill our commitments to 
modernize our current deterrent pursuant to the existing treaty 
obligations, then that would, in my view, not be advisable 
particularly if we do not know that we have modernized what we 
have now, which we know is important to do to make sure it 
works.
    In that regard, I wanted to ask you about the recent 
Missile Defense Agency test that the chairman asked you about 
of the CE1 kill vehicle. One of the issues that I see with that 
is that this issue of our missile defense program needs to be 
prioritized. In fact, is it not true that the last time the CE1 
kill vehicle had been tested was 2008?
    Admiral Haney. Senator, it is my understanding that the CE1 
has gone through a number of tests, and as a result of the 
combined tests, it is an effective and operational capability 
today.
    Senator Ayotte. The first flight test we have had, General, 
was since 2008. Here we are, 2013, and the last time we had a 
flight test of it was 2008. It seems to me that if we are going 
to have a commitment to our missile defense and making sure 
that the capabilities are there, that we need to put resources 
in it that are going to further testing. In fact, what troubles 
me is the administration, even prior to sequestration, was 
cutting funding for this program.
    As we go forward, what do you believe the priorities should 
be in terms of making sure that our missile defense programs 
are supported?
    Admiral Haney. Senator, my priorities would be the day we 
invest in sensors, we invest in reliability of the missiles 
that we are using, both CE1 and CE2, and we do adequate testing 
to ensure that reliability exists.
    Senator Ayotte. With regard to an east coast missile 
defense site, you said to the chairman that you felt that there 
were further analysis of the missile threat to Iran. Do you 
dispute what has been the report from the National Air and 
Space Intelligence Center from earlier this month that 
concluded Iran could develop and test an intercontinental 
ballistic missile (ICBM) capable of reaching the United States 
by 2015?
    Admiral Haney. Senator, I am not here to dispute what you 
just said.
    Senator Ayotte. What further analysis do we need to 
conduct? We missed it when it came to the North Korean nuclear 
threat, and I would hate to see us in that position with regard 
to Iran. Would you agree with me that if we had an east coast 
site, particularly with the cancelation of the SM-3 Block 2B 
program, that it would provide additional battle space in 
response to an ICBM missile from Iran to the east coast of the 
United States?
    Admiral Haney. Senator, I believe we have to continue to 
study how we are going to address that. As I mentioned earlier 
and truly believe, that we have to also get the sensing right 
so that as we fire our individual missiles to address this 
problem, that we have the right targeting with that. I also 
support, as far as the east coast launch site, that we move 
forward with the environmental impact statement (EIS) in order 
to allow us an option in the future.
    Senator Ayotte. General, my time is up, but I will follow 
up because in the written answers and also to the chairman you 
have talked about additional analysis about the Iran threat. 
With the reports that 2015 is when they may have ICBM 
capability, I am not sure what we are waiting for around here 
for additional analysis because we know, even with the EIS 
going forward, it will take several years for us to stand that 
type of site up, and by then, they have the missile and the 
east coast does not have the battle space opportunity that it 
should have to fully protect the east coast of the Nation. I 
appreciate it, and I will follow up with you on that.
    I want to thank you both. I will have a follow-up for the 
record with you, General Scaparrotti. I appreciate it.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. I want to also add my voice to the 
members of the committee to thank you, and I think more 
importantly, you all agree, your families for your service and 
the way in which you have been supported by them.
    Admiral Haney, I chair the Strategic Forces Subcommittee. I 
look forward to working with you in that capacity, when you are 
confirmed, on these important issues that have not only 
military but historical significance.
    General Scaparrotti, it is good to see you again. I know we 
are going to work together too given the proclivities of the 
North Korean leadership and the challenges that you will face 
as the head of USFK.
    Admiral Haney, if I could turn to you initially, and I want 
to pursue the same line of questioning you have been hearing 
this morning from all of us. Are you confident that the 
President's proposal to reduce the number of deployed strategic 
nuclear weapons will allow us to maintain an effective nuclear 
deterrent and to be able to fully respond to a nuclear attack?
    Admiral Haney. Senator, I fully support, as stated in my 
earlier questioning, that the New START treaty numbers make 
sense to me and that we ought to continue to march toward that 
goal.
    I also fundamentally believe that we should always, as good 
stewards, look for the right balance in all of our capability. 
I have not studied this piece, and if so confirmed, I would be 
willing to come back to this committee in a classified setting 
to further address this balance of our capability that we will 
need for the future.
    Senator Udall. Let me follow that with a question, and I 
think you can respond up to a point, given this is an open 
hearing.
    If reductions were made, we would be able to maintain those 
weapons that were reduced in a status that would allow them to 
be redeployed if a situation demanded. Is that correct?
    Admiral Haney. Senator, it would really depend on any 
future agreement that we would have in terms of what were the 
basis and parts and components of said agreement relative to 
what we would retain and what we would not.
    Senator Udall. Some of the present agreements, if I am 
correct, do allow that, though, as an option. Is that fair to 
say? Some of the treaties that are in place today.
    Admiral Haney. Yes, sir, that is my understanding.
    Senator Udall. The weapons are kept in a warm status if 
they are kept in a stockpile?
    Admiral Haney. That is correct. The New START treaty 
addresses both deployed and nondeployed warheads and also 
addresses launchers.
    Senator Udall. Talk about the benefits, as you see them, 
that are associated with the proposed changes to our nuclear 
employment strategy. Do you believe the benefits, in other 
words, outweigh the risks?
    Admiral Haney. Senator, I believe the benefits relative to 
the New START treaty provide us the adequate numbers of nuclear 
weapons and launchers to address the threats now and into the 
future.
    Senator Udall. Let me move to modern conventional weapons. 
There are some who I respect and I think many respect who say 
that modern conventional weapons have provided us with the 
capabilities that once would have been required by nuclear 
weapons. Am I correct in saying because of those advanced 
conventional weapons, we simply do not need as many nukes as we 
once did to accomplish the same objective?
    Admiral Haney. Senator, I would say that as you look at the 
number of nukes, our combined capability is also important as a 
country. When you look at how many nukes we had--nuclear 
weapons--during the Cold War and just the significant 
quantities we have had, if you were to look at that graph from 
about the 1950s on, it is pretty interesting in how we have 
made significant reductions while still retaining quite a few 
weapons.
    I fundamentally believe that we have to be careful and look 
at all of our capability, similar to what was stated in the 
Nuclear Posture Review in 2010, that that is also part of our 
country's capability and what we can bring to bear if so 
threatened. But as long as other countries have nuclear 
weapons, we are required to have a safe, secure, and effective 
means to address that.
    Senator Udall. I think we all agree on that point. You are 
saying that the conventional arsenal that we have today is 
advanced and it complements our nuclear weapons capability as 
well. Is that what you are saying?
    Admiral Haney. It complements. What I am also saying is I 
do not have a magic equation that says this number of precision 
guided munitions equal this capability because we are talking 
about a significant difference in destructive capability when 
we look at a nuclear weapon.
    Senator Udall. Admiral, let us turn to the modernization of 
the B-61 bomb. Do you support that current modernization plan? 
What would be the consequences if the United States did not 
modernize the B-61?
    Admiral Haney. Senator, I think the B-61-12 modernization 
program is very important to our Nation, and I fully support 
it. I also believe that we will be at risk if we do not support 
it because through its modernization, it also reduces the 
number of other nuclear weapons that we have today and brings 
it down to one type model series for nuclear surety and in 
order to have a safe, secure platform for our use, but 
particularly in terms of the tactical nukes associated with our 
dual-capable aircraft program.
    Senator Udall. You paid me the honor of a visit and we 
talked about this particular plan. We also talked about your 
willingness to work with Senator Sessions, who is my ranking 
member on the subcommittee, and myself to bring down the costs 
of the B-61-12 program. I heard you imply but I want to make 
sure for the record that you have a chance to clarify further. 
You will work with us to bring down that price tag and do 
everything possible to create some efficiencies. Is that 
correct?
    Admiral Haney. Senator, if so confirmed, I will work hard 
to look at costs in every program STRATCOM is associated with.
    Senator Udall. Thank you for that answer.
    Chairman Levin. Let me interrupt you, Senator Udall. We 
only have a minute left in this vote. There was a 
miscommunication here. At any rate, we are right at the end of 
the vote. We only have about 5 minutes to get there. We are 
going to have to recess for 10 minutes or so because none of us 
have voted yet. We will call the cloak rooms and let them know 
that we are on our way. We are going to have to recess. Sorry 
to interrupt you. If you get back, then we owe you a minute or 
2.
    Senator Udall. Thank you, Mr. Chairman.
    Chairman Levin. Okay. We are going to hold off on that. 
Senator Donnelly is here and he can continue.
    Do you want to finish?
    Senator Udall. Could I just finish the question for the 
record, Mr. Chairman?
    Chairman Levin. Sure.
    Senator Udall. Then I would be happy to defer to my wise 
colleague from the Hoosier State, Senator Donnelly.
    I will ask this for the record, Admiral. On the issue of 
electromagnetic (EM) spectrum management, I think you are well 
aware of the discussion that is underway. I think if we had 
public access to that bandwidth, it would be a great economic 
benefit. I know we also cannot negatively affect DOD mission.
    Do you believe that the lower 25 megahertz of that spectrum 
could be vacated within the currently proposed timeline without 
unduly affecting our military and our military missions?
    Admiral Haney. Senator, I think as we go forward here in 
the electronic spectrum, as much as it is also becoming 
extremely utilized, that we have to be very careful that costs 
associated with taking the EM spectrum away in areas where the 
military is using right now because there will be a cost 
associated with migrating those equipments to a different EM 
band.
    Senator Udall. I hear caution in your answer but I want to 
continue to work with you on this important what I think is 
opportunity but we also have to do it right.
    Thanks again, gentlemen, to both of you. I look forward to 
working with you after you are confirmed. Thank you.
    Senator Donnelly?
    Senator Donnelly [presiding]. Thank you, Mr. Chairman.
    It is great to be with both of you. I want to thank you for 
your service to the country and to your families for everything 
you have done on behalf of this Nation. We are very grateful to 
all of you.
    Last Saturday, July 27, marked the 60th anniversary of the 
Korean War armistice. I would like to recognize our 
servicemembers who currently serve and have served in the 
Republic of Korea and thank them for their service.
    One such Korean War veteran was Army Lieutenant Colonel Don 
Faith, a Hoosier who was posthumously awarded the Medal of 
Honor and was buried in Arlington Cemetery just recently. His 
body was recovered from North Korea in 2004 as part of a joint 
U.S.-Democratic People's Republic of Korea recovery team.
    Currently 5,500 U.S. servicemembers are still missing in 
action in North Korea. General Scaparrotti, what conditions are 
necessary for resuming recovery operations in North Korea so 
our missing-in-action soldiers can be brought home to their 
families?
    General Scaparrotti. Sir, first let me say that I fully 
support efforts for repatriation of our servicemembers, their 
remains. It is an obligation that we have, I believe, as a 
Nation. If confirmed as the U.N. Commander, as a part of those 
duties, I will have particular duties regarding the 
arrangements for the repatriation of remains.
    I think in terms of what we should do, I think to go 
forward, we should ensure that it is within the priority of our 
other national interests and, second, that we can assure the 
security of those individuals that we would put into North 
Korea to retrieve the remains and do the operation there.
    Senator Donnelly. Thank you.
    Admiral Haney, recently the National Air and Space 
Intelligence Center put out a report regarding ballistic 
missile systems and said China has the most active and diverse 
ballistic missile development program in the world. It is 
developing and testing offensive missiles, forming additional 
missile units, qualitatively upgrading missile systems, and 
developing methods to counter ballistic missile defenses.
    When we look at that and we know that with our missile 
defense systems, the last three tests have failed, how do we 
rectify that situation?
    Admiral Haney. Senator, as we look to the future here, it 
is very important that we are able to continue to work our 
missile defense solutions across the board but, in particular, 
to get our GBI solution set operating with the confidence we 
expect. We have had numerous tests over the years of the CE1 
variant and it is operational, and it is operational to the 
extent that it is currently protecting our country. As we look 
at the future, it is important that we get the CE2 portion of 
this also correct and that we look at the full range of options 
as we look at addressing the missile defense threat.
    Senator Donnelly. One of the other concerns that I have is, 
as we look at the east coast missile defense system more, the 
suggestion of whether or not we need one, folks have said there 
is no point in going further with that because we do not have 
the other system even working right. I think we are able to do 
two things at one time. Do you see a need for an east coast 
missile defense system?
    Admiral Haney. Senator, I see a need for us to look at 
other options, options in general, of how we address this 
problem. I am fully supportive of moving forward with the 
environmental impact statement, which is fully supported, as we 
go forward while at the same time making sure we get our 
sensing right so that we can further refine our capability in 
terms of being able to attack these missiles with our current 
programs.
    Senator Donnelly. You were kind enough when we met to talk 
a little bit about this issue with me, but I just wanted to 
mention it again and that is in regards to counterfeit parts. 
It is an extraordinarily dangerous situation when these parts 
are used in equipment that protects our soldiers, that our 
servicemembers depend on.
    Is there a way to use facilities like Crane Naval Warfare 
Center in Indiana to minimize DOD's risk of receiving 
counterfeit parts in the military supply chain?
    Admiral Haney. Senator, I think it is very important that 
we continue to work hard as a country and as a military to look 
and avoid counterfeit parts. This is a very important area as 
we look at our current posture but also as we look at the 
future with the number of systems with chips of various 
capabilities in so much of our military apparatus.
    With regards to how we do that, if so confirmed, this is an 
area I will look at and from that standpoint, if so confirmed, 
come back to you relative to Crane. I have not been to Crane. 
This is one of the areas in the early months, if so confirmed, 
that I will want to get around to see our various capabilities 
in the country and be able to address that more formally.
    Senator Donnelly. We would be honored to have you come.
    General, in regards to North Korea's ballistic missile 
systems, what do you think their intent is?
    General Scaparrotti. Sir, I think North Korea has an 
aggressive ballistic missile program. They have hundreds of 
short- and medium-range missiles. They are developing 
intermediate-range and ICBMs. They see that as prestige for 
their regime. They see it as a means of extending the regime's 
security. They see it as a manner of deterrence against the 
United States and our influence in the region, as well as the 
other regional partners. I think the regime itself sees their 
ballistic missile systems as very important.
    In recent years, their conventional forces have been 
declining in capability, and it is the money that they are 
putting into asymmetric systems like the ballistic missile 
system, their special forces, cyber, et cetera that I think 
they have changed their strategy toward us.
    Senator Donnelly. Thank you very much, General, Admiral. 
Thank you both for your service.
    Mrs. Fischer?
    Senator Fischer. Thank you, Senator.
    Thank you, Admiral, and thank you, General, for being here 
today, and I thank you for your service. I thank your families 
for their sacrifice through the years. I can see you should be 
very proud of the families that you have raised while serving 
your country. Thank you very much.
    Admiral, I want to thank you again for taking the time to 
come and visit me in my office. I thought we had a great 
discussion, and I would like to just follow up, if I could, a 
little bit on the issues that we touched upon in my office.
    I had asked you about our relationship with Russia and your 
views on that relationship, but we did not have the opportunity 
to discuss their views on missile defense. I would ask you, how 
do you think the United States should deal with the Russians' 
repeated demands for legal limits on our missile defenses? How 
do you define the term ``legal limits''?
    Admiral Haney. Senator, I do believe, as we have 
articulated from the Nuclear Posture Review and the Ballistic 
Missile Defense Review and continued on a journey, we have 
continued to articulate how our missile defense system is 
designed to be a limited missile defense system that should not 
be conceived as a threat to Russia's deterrence capability.
    I think as we continue to work with the Russians, we will 
have to continue the dialogues that have been started to 
continue to make sure their questions are in fact answered, but 
at the same time, we have to be mindful that it is important 
that we defend and have adequate capability to defend our 
assets, both deployed and our Homeland. As I see Russia, that 
is also a country that is doing some investment in their 
capability. The combination of continuing to have discussions 
and negotiations I think is important for our future.
    In terms of defining the legal limit piece, that is an 
area, if so confirmed, I would like to look at more closely and 
come back to you.
    Senator Fischer. Do you believe that it should be our 
decision as a country, as a Nation, on where we deploy our 
defense systems and the numbers that we use in those 
deployments?
    Admiral Haney. Senator, I think it is important, as we 
deploy any of our capability, that we work through our 
associated analysis as well as work with our allies and 
partners and countries like Russia in terms of how we come with 
an integral solution. But as we do that, we clearly have to 
prioritize what we are trying to achieve is part of that 
calculus.
    Senator Fischer. Do you believe that we should support or 
do you support sharing classified data on our missile defenses 
with the Russians? If so, would you draw a line and where would 
you draw the line on how much to share?
    Admiral Haney. Senator, that is a very good question. The 
business, in terms of information sharing, is one that has to 
be looked at closely, both looked at from a standpoint of how 
we look at the world today and how we look at the world in the 
future. I think as we look at information sharing, which we do 
with a variety of countries on different subjects, for missile 
defense, that is one that, again, has limits and bounds. As I 
sit before you, I could not in an unclassified forum talk about 
that but would look forward, if so confirmed, in the future to 
have an opportunity to continue that discussion.
    Senator Fischer. Thank you. I appreciate your offering to 
do that. I think it is an important point and it is one that we 
need to have a conversation about. I thank you for that.
    You mentioned that you support more testing for missile 
defense. Do you believe that our current budget can adequately 
do that? Do you think we need more resources, especially given 
some recent test failures? What would you advise if you are 
confirmed?
    Admiral Haney. Senator, if so confirmed, this will be an 
area that I would want to look at closely. Number one, whenever 
we talk about adding more resources, it is very important first 
we look at what our resources we currently have are doing for 
us, and I am a big believer that we have to be careful before 
we just come out and ask for more without doing some rigorous 
reviews of what we are spending money on.
    I do believe, though, when we look at testing, testing 
covers a full gamut, partially testing that you can do without 
launching in space as you narrow down and do the analysis 
associated with componentry. I know this last test is under 
review and, until so confirmed, I am unable to see the results 
of that work, it is hard for me to give you an answer that 
would be substantial. I look forward to that, if so confirmed, 
in the future.
    Senator Fischer. I would assume from some of your previous 
statements, though, that you do believe that we need to have 
equipment that is going to work and make sure that it can do 
the job. Is that correct?
    Admiral Haney. Senator, that is very important for us to be 
able to achieve for the future of the defense of our country 
and for our deployed forces as well as our allies.
    Senator Fischer. Thank you.
    We talked a little bit about the new facility that is being 
constructed at STRATCOM in my State and that hopefully it is on 
schedule and it will continue to move forward at the speed that 
it needs to move forward at so that we can update the resources 
that we have there at STRATCOM. Do you have anything you want 
to add on that about the value that that facility will have for 
STRATCOM? I know you were assigned to STRATCOM. I believe it 
was in 2010. You are familiar with the area, and I know you are 
familiar with the planning of that facility. What would you add 
to that and the value that it has for the mission?
    Admiral Haney. Senator, thank you for that question.
    The command and control complex that is being built right 
now is very important to our Nation in terms of all the 
missions of STRATCOM and, in particular, strategic deterrence. 
It is important, as we have talked about here, the warheads, 
the weapons, the platforms, and the sensors, but without the 
command and control that connects the relevant information to 
our leadership, the decisions could not be made in a prompt 
time. That is such an important part of our infrastructure and 
capability going forward.
    I thank Congress for its support for that command and 
control complex.
    Senator Fischer. Thank you, Admiral. I look forward to 
working with you to make sure that it continues to move 
forward. Thank you very much.
    Thank you, Senator.
    Chairman Levin [presiding]. Thank you, Senator Fischer.
    Now I believe that Senator King is next.
    Senator King. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for your service to the 
country and your joining us this morning.
    Admiral Haney, I have heard a number of witnesses over the 
course of the past 6 or 7 months characterize cyber as the most 
serious, immediate threat that we face. The term I have heard, 
which stuck with me, was the next Pearl Harbor will probably be 
cyber.
    Given that, do you think that the Cyber Command, which is 
under your proposed command, should be set apart and elevated 
to its own unified combatant command?
    Admiral Haney. Senator, I am a fan of a command and control 
structure that allows us to win would be my first overarching 
statement.
    As we look at how we are aligned today with Cyber Command 
as a sub-unified command under STRATCOM, I believe the work is 
ongoing and in fact is working in a very synchronized fashion 
with delegated responsibilities to U.S. Cyber Command.
    My first principle would be the first part that we have to 
keep intact is the National Security Agency and Cyber Command 
under the same hat, as we have it today, and that that synergy 
is so important to our country going into the future. That 
piece we have to continue and we have to get it right. As we 
look at a future and particularly as we grow our cyber 
capability, I believe there may come a time where Cyber Command 
as a separate combatant command will be appropriate. But I 
think as we are applying our next dollars in terms of the 
manpower we need to address this threat and in terms of the 
tool sets we need to address this threat, that that is 
important because as we do step into moving Cyber Command as 
its own combatant command, there is also a price to be paid 
there as well in overhead. Right now, I think we are fine in 
our current alignment but I am not opposed for some time in the 
future for Cyber Command to become its own combatant command.
    Senator King. Since the 1950s, our strategy with regard to 
nuclear weapons has been deterrence, mutually assured 
destruction, and that presumes a level of rationality in one's 
enemy. What is our strategy for deterrence of madmen with 
nuclear weapons, people that are not necessarily rational, 
whether they are state or particularly non-state actors? What 
is our sort of overall strategic thinking about, as I say, 
particularly non-state actors who at some point in the 
reasonably near future may be able to obtain nuclear weapons?
    Admiral Haney. Senator, I think that is an area 
particularly where the Nuclear Posture Review of 2010 
articulated a strategy which we continue, point one being that 
it is important that our efforts in terms of combating weapons 
of mass destruction continue. We have had the initial operating 
capability of the standing joint force headquarters for 
elimination, for example, in the business of having that 
capability, the business of being able to have our country's 
capability of knowing where the nuclear weapons, as well as the 
other weapons of mass destruction, are and to work hard to 
avoid having this kind of capability fall in the wrong hands.
    Senator King. It is an intelligence function. Is that what 
you are saying? Principally our defense against non-state 
nuclear weapons is essentially knowing who has them and how to 
prevent them?
    Admiral Haney. I think, Senator, this is also in the spirit 
of reducing the number of weapons that exist in the world. It 
has been part of that Nuclear Posture Review and the strategy 
that our country has been striving to achieve. It is not just 
an intelligence function. It is a whole-of-government function. 
It is a function that STRATCOM is also heavily involved in to 
detect, deter, and prevent utilization of that type of weapons.
    Senator King. But you understand what I am saying. The 
strategy of deterrence may work with Russia but an Iranian 
terrorist cell who thinks that if they die in a holy war, they 
are going to go straight to heaven--deterrence is not 
necessarily a viable strategy. What is the strategy?
    Admiral Haney. The strategy is to continue to work across 
our whole-of-government apparatus in terms of ensuring that 
countries that harbor folks that want to do harm to us in 
whatever means--there is some work that occurs diplomatically. 
There is work that occurs militarily. This business of knowing 
where things are is also a very important part of that strategy 
to address the threat in addition to the elimination of that 
threat.
    Senator King. Thank you.
    General, in the full preparation of our committee, I want 
you to know that we are preparing you today for Korean 
winters--the air conditioning in this room. We want you to be 
ready for cold weather. [Laughter.]
    General Scaparrotti. Thank you, sir.
    Senator King. This past Saturday I had the honor to visit 
with a number of Korean War veterans at the 60th anniversary of 
the signing of the treaty at Panmunjom. I have a little 
statement. Of course, you know Korea is often characterized as 
``the forgotten war''. But in looking at the situation where we 
have a very vigorous country of 50 million people in the south 
and a miserable despotism in the north, I cannot think of too 
many wars that made as much difference as that war did if you 
look at the stark difference on the two sides of that narrow 
line. It certainly should not be a forgotten war.
    A question that I am sure you are going to have to deal 
with in the next several months is, to what extent is the 
sequester going to affect readiness in Korea?
    General Scaparrotti. Senator, I think it will affect 
readiness in Korea at some point. Presently USFK enjoys a very 
high priority in terms of funding and resources. Just after the 
forces deployed in harm's way, Korea is on that level because 
we have to be ready to fight in Korea tonight. It is that 
uncertain. We have enjoyed that kind of funding.
    If confirmed, I intend to keep a very close watch on our 
readiness levels, the resources that we have. I think my 
concern would be as we reduce our funding, particularly if we 
go into full sequestration, we know that we have seen a 
reduction in the forces now already or their readiness, and 
that would be extended into the next year and, of course, 
become worse over time. The forces in Korea depend on 
potentially a rotation of forces, but certainly the forces that 
would come forward if there is conflict on the peninsula. I 
think that is the impact as we look to the future.
    Senator King. I hope perhaps for the record you could 
provide some analysis--because it is now looking more and more 
like full sequester in 2014 is a likelihood if not a 
certainty--of what the impact would be and how it would be 
allocated because it is very important for us to know, as we 
are debating and discussing sequester and what the alternatives 
are, that we have a realistic picture of the impact. My 
understanding, from talking to other people in the Pentagon, is 
that the sequester in 2014 is going to be a much more serious, 
widespread impact than it was in 2013 because of the lack of 
low-hanging fruit, if you will, of unexpended funds and those 
kinds of things. It is going to be a higher level of impact. 
Perhaps for the record you can give us some serious analysis of 
the impact on Korea. We need to have that information.
    General Scaparrotti. Senator, presently we already see the 
impact on readiness just in this fiscal year, as you mentioned, 
in fiscal year 2013. You know that the Army has the majority of 
its brigades now at a lower training level focusing on company-
level training, for instance. For those brigades who are either 
not deployed or those who are about to deploy, those two 
categories maintain the training levels they need to be ready 
for that deployment. But all other brigades have come to a 
lower proficiency level and resourcing.
    The Air Force, you are aware, has already grounded 12 air 
squadrons, as I understand it. The Navy has cut back on ships 
going to sea and the maintenance that they are providing. That 
is the short term.
    But as we take those cuts today, you will see a much deeper 
cut in readiness as we go into 2014 and beyond because that 
begins to compound itself. Pilots who have not flown take much 
longer to get back up to combat proficiency. Brigades who have 
not trained in the fundamentals, particularly the integration 
of combined arms at a higher level, take much longer to train 
and it is more expensive. I think as time goes on, we see our 
readiness coming down and that is of concern.
    How does that impact USFK? First of all, it is the forces 
that we may rotate there. They would take longer to be ready 
for the mission that they are going to do. If it were forces 
that had to be deployed in response to, say, a provocation, we 
would probably take some time here in the States to train that 
unit to the readiness level that we believe they need to be at 
to do the job before they deploy. Arriving forces might be 
delayed as a result.
    Senator King. Thank you. I appreciate that, and any 
additional information you could provide us for the record 
would be helpful. Thank you.
    General Scaparrotti. I will, sir. Thank you.
    [The information referred to follows:]

    I will continue to review and evaluate the readiness of U.S. Forces 
in Korea and what impact, if any, full sequester could have on those 
forces.

    Chairman Levin. Thank you, Senator King.
    Senator McCain?
    Senator McCain. Thank you, Mr. Chairman.
    Admiral Haney, you will be leaving the command of the 
Pacific fleet. How is the littoral combat ship working out?
    Admiral Haney. Senator, we had the USS Freedom deployed 
today in the western Pacific.
    Senator McCain. Based out of Singapore?
    Admiral Haney. Operating out of Singapore, sir. In fact, it 
has been involved in a variety of exercises and operations 
since it has been out there.
    We also have two other littoral combat ships, the 
Independence and the Fort Worth, that are operating out of San 
Diego and working, in the Independence's case, the mine warfare 
module. I am happy to report we have three out in the Pacific 
today, sir.
    Senator McCain. My question was how is it working out?
    Admiral Haney. Senator, it is working out very well in 
terms of our ability to take this first platform, a research 
and development model, and get it out in the Pacific to do real 
work. Clearly with it, we have learned a lot, but we are right 
now about to swap the second crew to that platform about 
halfway through its 8 months deployment in the case of the 
Freedom. The other two are continuing to work through the 
various----
    Senator McCain. I would like for the third time to ask you 
how is it working out. Are you satisfied with its performance? 
Are the modules being replaced on time? Are the cost estimates 
what they should be? Please answer the question, Admiral.
    Admiral Haney. Senator, I would----
    Senator McCain. I can get a status report whenever I want 
one. I want to know your view as to how the littoral combat 
ship is working out as far as its ability to defend our 
interests in the Pacific.
    Admiral Haney. Senator, currently it is working out very 
well from an ability to deploy it and get it to do its work. 
The platform itself, both varieties, have moved forward, and my 
personal view is that that part is also working out well. We 
have learned some things that have been incorporated from 
Freedom, LCS-1 to LCS-3, and those improvements I believe are 
right on target.
    If there is one area that requires more work and that we 
have been working as a Navy to get there is the mission modules 
of the different varieties. The current module deployed with 
the littoral combat ship number one is working fine, and it is 
a little early for me to give you the prognosis on the 
Independence mine warfare mission module, sir.
    Senator McCain. General, there have been plans to move our 
troops in South Korea to a base further away from Seoul. How is 
that progressing?
    General Scaparrotti. Sir, presently those plans are 
underway. They are being worked with our ROK counterparts as 
well. Primarily right now, we are making plans for the ability 
to make those moves to----
    Senator McCain. Have we gotten cost estimates yet as to how 
and who would bear those costs?
    General Scaparrotti. Yes, sir, there are cost estimates at 
this point. It is shared costs with our ROK counterparts as 
well as our own payment. I am aware of the issues with the cost 
today. As I said, we are----
    Senator McCain. Roughly what costs are we talking about to 
complete the contemplated move?
    General Scaparrotti. Sir, in terms of the Land Partnership 
Plan, which is the one that we pay probably the most part of, 
it is about $880 million for our portion of that Land 
Partnership Plan move, and that has to do with the forces north 
of Seoul.
    The Yongsan Relocation Plan is a plan paid primarily by the 
Republic of Korea for the move of the services and the forces 
right around Yongsan in the headquarters area.
    Senator McCain. Now in, ``paying for the move,'' does that 
mean paying for all of the installation that is necessary 
there?
    General Scaparrotti. My term, sir. In those plans, it is 
the payment for the construction of facilities to support the 
troops, and there is also housing included in this as well for 
families, et cetera.
    Senator McCain. Do you think it is a wise move at this time 
for the South Koreans to reopen that facility, manufacturing 
area, north of the Demilitarized Zone?
    General Scaparrotti. Sir, I think that if the two countries 
can come to terms on their agreements and, as South Korea said, 
so that it would not be used as leverage again, that is a 
platform that can be used then to perhaps develop communication 
and reduce the tension between North Korea and South Korea.
    Senator McCain. I thank the witnesses.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you both for your service, your extraordinary careers 
of service, to our Nation. Thank you to your families as well 
for their contribution and service.
    Let me begin, Admiral Haney, by asking you about the Ohio-
class ballistic missile submarines. I know that you have today, 
in fact, called then critical to our national defense, and yet 
as you also know, the program has been delayed by at least 2 
years. Is that a wise move?
    Admiral Haney. Senator, the delay with the program has 
incurred some risk, and that is a risk that we are working 
through. I would say we can ill-afford to have another delay 
with this program.
    Senator Blumenthal. Another delay would be unacceptable?
    Admiral Haney. That is correct, Senator. Particularly as 
you look at the aging of the current platform that is beginning 
to reach its end of life, 42 years is a long time to be 
operating a submarine.
    Senator Blumenthal. My understanding is that the official 
explanation has been that the delay will enable more refined 
development of the weapons platform, of the technology, and 
ultimately some prospect of cost savings. Is that the reasons 
that you understand the delay has been implemented?
    Admiral Haney. Senator, I think the delay was implemented 
for some of that, but it was also a matter of prioritization of 
resources.
    Senator Blumenthal. Cost savings, in other words, the 
unavailability of funds.
    Admiral Haney. Yes, Senator.
    Senator Blumenthal. In a more perfect world--not a perfect 
world necessarily, but a more ideal world, that program would 
be implemented without the delay.
    Admiral Haney. Senator, that is correct. I will say I know 
that there is some work that continues to go on in research and 
development and design development for that platform. I think 
in the interim time, good work continues.
    Senator Blumenthal. If possible, though, we would 
recalculate and eliminate that delay, if possible.
    Admiral Haney. Senator, I think we have already started the 
delay, and you cannot make up for what is already lost. We are 
already in that phase.
    Senator Blumenthal. But there is no question that we need 
that Ohio-class ballistic missile submarine and that we need to 
provide sufficient resources without additional delay.
    Admiral Haney. Senator, that is correct.
    Senator Blumenthal. General, if I could ask a few more 
questions about the relocation. Given the stringency--and you 
have heard a number of my colleagues talk about the possible 
continuing of the sequester even though many like myself 
believe that it would be unwise and really unjustified to apply 
it as it would be to the defense budget--can you tell me 
whether canceling the relocation is an option that perhaps we 
should consider?
    General Scaparrotti. Sir, I cannot say for sure whether 
that would be an option we would consider. It seems to me that 
we have made, as a part of the Strategic Alliance 2015, 
agreements with our ROK allies, and those moves are tied to 
that. From the position I am in now, I cannot really comment on 
whether that is really an option.
    But I would say too that those moves help us posture our 
forces better. To the extent that we can continue on that line, 
my judgment is it would be good for the readiness of the force 
as well.
    Senator Blumenthal. You have said it would be good. It is 
essential for the readiness of the force?
    General Scaparrotti. Sir, if confirmed, I will certainly 
review that and be willing to come back to you. I do not 
believe that from this position I have the capability to answer 
that question fully, but I will be able to once I am on the 
ground and I can see the impact of both the moves and also the 
importance with respect to our bilateral agreements.
    Senator Blumenthal. Do you have an estimate as to what the 
cost of canceling or delaying the relocation would be?
    General Scaparrotti. No, sir, I do not.
    Senator Blumenthal. Would you be able to provide one to the 
committee?
    General Scaparrotti. Sir, if confirmed, I am willing to 
provide one to the committee.
    Senator Blumenthal. Thank you. I would appreciate that.
    [The information referred to follows:]

    Currently, I understand a reliable cost estimate for cancelling the 
transformation initiatives does not exist. With that said, I understand 
that there would be potential political sensitivities with our Republic 
of Korea allies if this effort is cancelled, as they are paying for 
over 90 percent of the costs of the Yongsan Relocation Plan and Land 
Partnership Plan. Additionally, over $500 million of U.S. Military 
Construction has been invested in building infrastructure to support 
the relocation efforts.

    Senator Blumenthal. I must say I do not have too much doubt 
you will be confirmed. I expect you have heard much the same 
from others on this committee. I certainly will be supporting 
you in that vote.
    What is the overall cost of the project? I have heard the 
number $10 billion.
    General Scaparrotti. Of that project?
    Senator Blumenthal. Yes. I am sorry. Of the relocation 
project.
    General Scaparrotti. Sir, again, I would like to come back 
on the record. I have heard a lower number than that, but I do 
not know if that is the entire cost of the project.
    [The information referred to follows:]

    The total U.S. and ROK costs of the Yongsan Relocation Plan and 
Land Partnership Plan initiatives are $10.7 billion.

    Senator Blumenthal. Finally, we hear a lot about readiness 
and about the impact of sequester on readiness. Could you 
maybe, to give us a little bit more concrete or factual basis 
for what the impact is, talk about what the effect is on the 
troops on the ground in Korea who will be under your command, 
the captains and lieutenants, the sergeants and staff 
sergeants, how their everyday training, life, and so forth is 
affected?
    General Scaparrotti. Sir, if I could, I would like to take 
that as a general question, not specific to USFK.
    Senator Blumenthal. Sure.
    General Scaparrotti. I have done some checking but I have 
not checked with those serving today in Korea. Second, they 
enjoy a very high resource category right now.
    But across the force, the reduction thus far in resources 
and the impact of sequester has resulted in the reduction of 
training that is being done. The troops are training every day 
but they are training at a much lower level.
    Senator Blumenthal. I know I have heard this numerous 
times, which is why I wanted to specify it to Korea. Does that 
mean that they are out in the field less, that they are sitting 
in classrooms rather than firing live rounds somewhere?
    General Scaparrotti. They may be in the field less. They 
are likely going to the range less. They are likely qualifying 
with weapons systems and the vehicle systems that they have 
less. The pilots are likely flying less.
    Now, you asked about morale. That also impacts morale 
because our young men and women are very proficient. They are 
very experienced. They know what it takes to be ready for 
combat across all the Services. They have been in a fight for 
10 years. So when we start to delay their ability to reach or 
maintain that kind of proficiency, it affects their morale as 
well. Also, they are concerned about their future in our force.
    Senator Blumenthal. Thank you.
    My time has expired but I think this topic obviously is 
supremely important. I want to thank both of you for your very 
helpful and insightful answers. Thank you very much.
    Chairman Levin. Thank you, Senator Blumenthal.
    I just have one additional question for you, General 
Scaparrotti. It has to do with the various approaches to the 
intense determination of all of us to reduce the number of 
sexual assaults and inappropriate sexual conduct.
    Given your experience at West Point and as a commander, 
should we take the chain of command out of that decision to 
prosecute courts martial?
    General Scaparrotti. Senator, thank you.
    I strongly believe that we should not take the commander 
out of the process in terms of dealing with disciplinary 
issues, in particular in this case, sexual assault. In the 
military, the commander is central to all that we do. The 
commander, in fact, is held responsible for his unit, all that 
it does or fails to do, and he or she is the most important 
person establishing the climate within that command of whatever 
size it is. It is the climate in my opinion that is fundamental 
to preventing sexual harassment and sexual assault. They are 
key to that.
    I believe strongly that our commanders take this seriously 
and that we can through training, through oversight, some of 
the initiatives that have been presented by members of this 
committee, perhaps some legislation, that can also help us 
strengthen our ability to deal with this with our commanders in 
the chain of command.
    In the end, I would just say I think it is a matter of 
integrity. We entrust them with great responsibility, special 
trust as it says in their obligation that they take, and we 
entrust them with the lives of our young men and women. To not 
trust them with a portion of this to me does not follow through 
with what we say and then what we do. I say that we hold them 
accountable, train them properly and give them the tools to do 
that oversight, and then maintain integrity of the system.
    Chairman Levin. Any other questions?
    Senator Inhofe. One.
    Chairman Levin. Senator Inhofe?
    Senator Inhofe. Yes, just one follow-up.
    I appreciate your answer very much to that question, 
General. Did you happen to see the compromise that the chairman 
and I and this committee put together that would maintain the 
integrity of the commander but also give some relief in the 
event that some abuse takes place? Did you see that?
    General Scaparrotti. I did, Senator.
    Senator Inhofe. What do you think about that?
    General Scaparrotti. I agree with that. As I said, I think 
there are some initiatives here that have been proposed that 
retain the commander in the process, but there are things that 
we can do in Article 60, for instance, which I think yours also 
contains, that provides less authority but proper oversight. In 
other words, in this case they would not retain the capability 
of changing a charge after a court martial is found, which they 
have today as a convening authority. But that would be left to 
judicial authorities on appeal. I think there are things like 
that that have been proposed in your bill that is acceptable, 
in the long run will be helpful to this problem.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    If I may follow up again just very briefly. In your career, 
General, have you acted as a convening authority and decided to 
prosecute cases of sexual assault?
    General Scaparrotti. In my time, I believe I have acted as 
a convening authority in terms of sexual assault. I know that I 
dealt with this issue as the commander or the commandant at 
West Point. That is the age group that we have the greatest 
challenge in in the military, and it happens to be the age 
group that we have at West Point as cadets. I became very 
involved in every aspect of this issue.
    Senator Blumenthal. Did you take a course in the Uniform 
Code of Military Justice?
    General Scaparrotti. Yes, sir, I have both in the courses 
that we go through as part of our career, but I personally made 
it a point to go to our legal school both before the time I 
became a battalion level commander and again before I became a 
brigade level commander and obtained special court martial 
convening authority. I purposely did that to ensure that my 
understanding and training was honed.
    Senator Blumenthal. Using that training, did you decide to 
prosecute individuals under your command for sexual assault?
    General Scaparrotti. Yes, I have, sir.
    Senator Blumenthal. On how many occasions would you say?
    General Scaparrotti. I could not give you the number, sir. 
I know that I dealt with cases at West Point in particular. I 
would have to go back and review. In I Corps, I probably did, 
just given the number of cases and the size of the element.
    Senator Blumenthal. Did you ever decide to prosecute 
despite a recommendation to the contrary from the judge 
advocate?
    General Scaparrotti. No, I never have. I cannot remember an 
occasion that I have disagreed with my judge advocate.
    Senator Blumenthal. So that when you received a 
recommendation to go forward and prosecute, you did so.
    General Scaparrotti. That is correct.
    Senator Blumenthal. On every occasion?
    General Scaparrotti. I would like to say one of the 
initiatives that we have talked about within the Services is 
the use of judge advocates and those who are specialized in 
particular crimes. In the case of sexual assault, for instance, 
I can tell you clearly that I have dealt with it as a convening 
authority in cases that had to do with murder, and in those 
cases, I sought not only my judge advocate's opinions, but I 
also asked that he go to the Army. We had their specialist in 
that area provide me advice as well. I think that is something 
that we can do in this area with those specially trained.
    Senator Blumenthal. You would like to see prosecutors who 
are specially trained and experienced with expertise in this 
area of sexual assault because it is a very challenging and 
sometimes difficult one not just to decide but also to actually 
proceed and prosecute and try and convict. Am I correct?
    General Scaparrotti. That is correct.
    Senator Blumenthal. Would you also like to see those types 
of trained and experienced prosecutors involved in the decision 
to prosecute?
    General Scaparrotti. I would. As I have said, I sought that 
kind of help when I was a convening authority.
    Senator Blumenthal. I very much appreciate your answers to 
my questions. As you may know, there is another point of view 
on the convening authority issue, and I personally deeply 
respect the solution that the chairman and ranking member have 
helped to lead. It has been great leadership on this issue in 
seeking a change. But I also think that we need to treat this 
crime as, in fact, a predatory heinous crime and that someone 
with the prosecutorial expertise and experience that you have 
described may be in a better position to make these decisions. 
I say that with all due respect. I really appreciate your 
answers to my questions.
    General Scaparrotti. Thank you, sir.
    Chairman Levin. Just to be very, very clear here, now the 
alternative proposal is to transfer the decisionmaking as to 
whether to proceed to a trained and experienced judge advocate 
or prosecutor. That is not what you support, I gather.
    General Scaparrotti. That is correct, sir. The Senator said 
``assist,'' and I believe the commander should still be in the 
chain.
    Chairman Levin. When you say that you would like to consult 
with such a trained and experienced Judge Advocate General 
officer and for that person to be involved in that sense to be 
consulted, that does, I take it from your testimony, in no way 
diminish your belief that the decisionmaking needs to remain in 
the chain of command.
    General Scaparrotti. Mr. Chairman, you are correct.
    Chairman Levin. Anything else?
    Senator Blumenthal. I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much.
    We are all done. Thank you both. Thanks to your families. 
We will stand adjourned.
    [Whereupon, at 11:22 a.m., the committee adjourned.]

    [Prepared questions submitted to ADM Cecil E.D. Haney, USN, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also improved cooperation between the Services and the 
combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. I believe that Goldwater-Nichols as it stands is 
effective.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Strategic Command (STRATCOM)?
    Answer. The Commander, STRATCOM, is responsible for the plans and 
operations for U.S. Forces conducting strategic deterrence and the 
Department of Defense (DOD) space and cyberspace operations. These 
responsibilities include the following missions: deter attacks on U.S. 
vital interests, ensure U.S. freedom of action in space and cyberspace, 
deliver integrated kinetic and non-kinetic effects in support of U.S. 
Joint Force Commander operations, synchronizing planning and 
coordinating operations support for global missile defense, synchronize 
regional combating weapons of mass destruction plans, provide 
integrated surveillance and reconnaissance allocation recommendations 
to the Secretary of Defense and advocate for assigned capabilities.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My 35 year career includes assignments and responsibilities 
involving operational and staff assignments in the U.S. Navy, the Joint 
Staff, and STRATCOM. I have completed various operational, leadership, 
and strategic deterrence assignments within the submarine force, to 
include assistant squadron deputy at Submarine Squadron Eight before 
taking command of USS Honolulu (SSN 718) and commanded Submarine 
Squadron One, and Submarine Group Two. I have served as the Deputy 
Chief of Staff of Plans, Policies and Requirements, U.S. Pacific Fleet 
(N5N8); and Director, Submarine Warfare Division (N87); Director, Naval 
Warfare Integration Group (N00X) and Deputy Commander, U.S. Strategic 
Command.
    As the Deputy Commander, STRATCOM, I gained experience in 
delivering effects with the broad range of strategic capabilities for 
combatant commanders engaged across the spectrum of conflict around the 
world. As Commander, Pacific Fleet for the past 3 years, I organized, 
trained and equipped pacific theater operational naval assets in space, 
cyberspace, intelligence, missile defense, and strategic effects in 
support of the missions of U.S. Pacific Command (PACOM), STRATCOM, 
North American Aerospace Defense Command and other combatant commands. 
I have also served as Commander, Joint Task Force 519 for Commander, 
PACOM. If confirmed, I will leverage my experience to lead STRATCOM in 
fulfilling its responsibilities.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. Strategic Command?
    Answer. I will seek to continue to enhance my expertise in 
STRATCOM's broad range of missions. If confirmed, I look forward to 
working with all the combatant commanders and the many organizations 
STRATCOM depends on for continued success, many of whom I worked with 
during my tour as the Deputy Commander, STRATCOM. I intend to establish 
clear lines of communication, define relationships and become more 
familiar with these organizations (e.g. Department of Homeland 
Security, Department of Energy-National Nuclear Security 
Administration, Missile Defense Agency, Defense Threat Reduction 
Agency, and the Nuclear Weapons Council) and their contributions to 
mission success.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, U.S. 
Strategic Command, to the following officials:
    The Secretary of Defense.
    Answer. Pursuant to title 10, U.S.C., section 164, subject to the 
direction of the President, the Commander, STRATCOM, performs duties 
under the authority, direction and control of the Secretary of Defense 
and is directly responsible to the Secretary for the preparedness of 
the command to carry out assigned missions.
    Question. The Deputy Secretary of Defense.
    Answer. In accordance with title 10, U.S.C., section 132, the 
Deputy Secretary of Defense will perform such duties and exercise 
powers prescribed by the Secretary of Defense. The Deputy Secretary of 
Defense will act for and exercise the powers of the Secretary of 
Defense when the Secretary is disabled or the office is vacant. If 
confirmed, I will work closely with the Deputy Secretary on appropriate 
matters.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Under Secretary for Policy is the principal staff 
assistant (PSA) and advisor to the Secretary and Deputy Secretary of 
Defense for all matters on the formulation of national security and 
defense policy and the integration and oversight of DOD policy and 
plans to achieve national security objectives.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Under Secretary for Intelligence is the PSA and advisor 
to the Secretary and Deputy Secretary of Defense for all matters 
regarding intelligence, counterintelligence, security, sensitive 
activities and other intelligence-related matters.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. The Under Secretary for Acquisition, Technology, and 
Logistics is the PSA and advisor to the Secretary and Deputy Secretary 
of Defense for all matters relating to the DOD Acquisition System; 
research and development; modeling and simulation; systems integration; 
logistics; installation management; military construction; procurement; 
environment; services; and nuclear, chemical and biological programs.
    Question. The Assistant Secretary of Defense for Global Strategic 
Affairs.
    Answer. The Office of the Assistant Secretary of Defense for Global 
Strategic Affairs (ASD/GSA) is a newly configured directorate in the 
Office of the Secretary of Defense that develops policy for the 
Secretary on countering weapons of mass destruction, nuclear forces and 
missile defense, cyber security and space issues. GSA is currently 
tasked with three major congressionally-mandated reviews: the Nuclear 
Posture Review, the Ballistic Missile Defense Review, and the Space 
Posture Review. In addition, GSA is the Defense Department's lead in 
developing a cyber-security strategy for the Department and for 
crafting the policy for the standup of the new Cyber Command. If 
confirmed, I look forward to working with the Assistant Secretary of 
Defense for ASD/GSA in coordination with the Under Secretary of Defense 
for Policy on matters in the area of U.S. Strategic Command.
    Question. The Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs under the authority, direction and control 
of the Under Secretary of Defense for Policy, serves as the principal 
civilian advisor to the Secretary of Defense and the Under Secretary of 
Defense for Policy on Homeland defense activities, Defense Support of 
Civil Authorities, Western Hemisphere security matters and provides 
overall supervision of homeland defense activities of DOD. If 
confirmed, I look forward to working with the Assistant Secretary of 
Defense for Homeland Security and Americas' Security in coordination 
with the Under Secretary of Defense for Policy on matters in the area 
of U.S. Strategic Command.
    Question. The Assistant Secretary of Defense for Nuclear, Chemical, 
and Biological Defense Programs.
    Answer. The Assistant to the Secretary of Defense for Nuclear, 
Chemical, and Biological Programs advises the Secretary of Defense on 
nuclear energy, nuclear weapons and chemical and biological defense; 
serves as the Staff Director of the Nuclear Weapons Council; and 
performs such additional duties as the Secretary may prescribe. If 
confirmed, I will work closely with this office and the Nuclear Weapons 
Council in support of the nuclear deterrence mission.
    Question. The Chairman of the Joint Chiefs of Staff,
    Answer. Title 10, U.S.C., section 163, clearly establishes the 
Chairman as the principal military advisor to the President, the 
National Security Council, the Homeland Security Council and the 
Secretary of Defense. In this role, he is the most senior ranking 
member of the armed forces but does not exercise command over any 
military forces or serve in the Chain of Command between the President 
and Secretary of Defense and combatant commanders, although the 
President may transmit communications through him. By law and as 
directed by the Secretary of Defense, the Chairman consults with the 
combatant commanders, evaluates and assists in achieving their 
requirements and plans. The Chairman provides a vital link between the 
combatant commanders and other elements of DOD. If confirmed, I will 
keep the Chairman and the Secretary of Defense promptly informed on 
matters for which I am personally accountable as Commander, STRATCOM.
    Question. The Secretaries of the Military Departments.
    Answer. Under title 10, U.S.C., section 165, subject to the 
authority, direction and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of the Military Departments are responsible for administration and 
support of forces that are assigned to unified and specified commands. 
The authority exercised by a combatant commander over Service 
components is quite clear but requires close coordination with each 
Secretary to ensure there is no infringement upon those lawful 
responsibilities which a Secretary alone may discharge. If confirmed, I 
look forward to building a strong and productive relationship with each 
of the Secretaries of the Military Departments.
    Question. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the Service 
Chiefs no longer serve in the operational chain of command. They now 
serve to provide organized, trained and equipped forces to be employed 
by combatant commanders in accomplishing their assigned missions. 
Additionally, these officers serve as members of the Joint Chiefs of 
Staff and have a lawful obligation to provide military advice. 
Individually and collectively, the Service Chiefs are a tremendous 
source of experience and judgment. If confirmed, I will work closely 
and confer regularly with the Service Chiefs.
    Question. The Director of the National Reconnaissance Office.
    Answer. The National Reconnaissance Office (NRO) is a DOD 
organization engaged in the research and development, acquisition, 
launch and operation of overhead reconnaissance systems necessary to 
meet the needs of the Intelligence Community and of the DOD. According 
to the Unified Command Plan, STRATCOM is the responsible combatant 
command for both space operations and for planning, integrating and 
coordinating intelligence, surveillance and reconnaissance in support 
of strategic and global operations, as directed. In these capacities, 
the Commander, STRATCOM must maintain a close relationship with the 
Director of the NRO to coordinate and represent requirements in these 
mission areas. If confirmed, I will work closely with the Director of 
the NRO on matters of shared interest and importance.
    Question. The combatant commanders, particularly Commander, U.S. 
Northern Command, and Air Force Global Strike Command and U.S. Cyber 
Command.
    Answer. The Commander, STRATCOM has both supported and supporting 
relationships with other combatant commanders, largely identified 
within the Unified Command Plan (UCP), the Forces for Unified Commands 
Memorandum, the Joint Strategic Capabilities Plan, specific command 
arrangement agreements, Operations Plans and Concept Plans. Air Force 
Global Strike Command is an Air Force major command that provides 
combat ready forces to STRATCOM to conduct nuclear deterrence and 
global strike operations as directed. U.S. Cyber Command is a 
subordinate unified command to STRATCOM. U.S. Cyber Command plans, 
coordinates, integrates, synchronizes and conducts activities to direct 
the operations and defense of specified DOD information networks. 
STRATCOM supports U.S. Northern Command's mission to conduct homeland 
defense to secure and defend the United States and its interests. In 
many cases, STRATCOM is a supporting combatant commander for other UCP 
assigned missions. If confirmed, I look forward to working with other 
combatant commanders to broaden and enhance the level and range of 
these relationships.
    Question. The Administrator of the National Nuclear Security 
Administration.
    Answer. According to title 50, U.S.C., section 2402, the Department 
of Energy's Under Secretary for Nuclear Security serves as 
Administrator of the National Nuclear Security Administration. The 
Administrator is responsible for all Department of Energy programs and 
activities related to nuclear weapons, including the stockpile 
stewardship program. Although the Administrator serves outside the 
DOD's operational control, he does serve on the Nuclear Weapons Council 
and executes duties which closely concern and support STRATCOM. If 
confirmed, I will work closely and confer regularly with the 
Administrator.
    Question. The Director of the Missile Defense Agency.
    Answer. The Missile Defense Agency (MDA) serves as the missile 
defense systems engineering and development organization for DOD. It 
provides the research, development, testing and evaluation of the 
missile defense and associated systems that would be employed by 
combatant commanders. The current Unified Command Plan charges STRATCOM 
with synchronizing planning for global missile defense including 
coordinating global missile defense operations support, and developing 
and advocating for missile defense and warning capabilities. Given 
these closely aligned responsibilities, both the Commander, STRATCOM, 
and its Joint Functional Component Command for Integrated Missile 
Defense must continue their close working relationship with MDA. If 
confirmed, I will work closely with the Director of MDA to ensure that 
combatant commanders' required ballistic missile defense and warning 
capabilities are appropriately and effectively represented to MDA.
    Question. The Director of Operational Test and Evaluation.
    Answer. Title 10, U.S.C, section 139, provides for a Director of 
Operational Test and Evaluation, who serves as the principal advisor to 
the Secretary of Defense and the Under Secretary of Defense for 
Acquisition, Technology, and Logistics on operational test and 
evaluation in DOD and the principal operational test and evaluation 
official within the senior management of DOD. The Director, as allowed 
by law and departmental regulations, formulates policy, provides 
guidance, coordinates, reviews, monitors and makes recommendations 
regarding test and evaluation matters under his purview. If confirmed, 
I will work closely with and seek the advice of the Director of 
Operational Test and Evaluation in assessing the progress of command 
programs of interest.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Commander, U.S. Strategic Command?
    Answer. The missions of STRATCOM are at the heart of U.S. national 
security and that of our allies and friends abroad. Today's national 
security environment is far more complex and diverse than ever before. 
Wider access to advanced technology, newly assertive states with rising 
aspirations regionally and globally, and still emerging vulnerabilities 
created by transnational linkages all fuel threats requiring 
synchronized efforts of many departments and agencies and other 
countries as well. Ensuring mission readiness and the proper policies, 
decision authorities and organizational relationships are in place to 
rapidly respond to complex and diverse threats will be a major 
challenge.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work with other Federal departments, 
agencies and allied partners to advance the policies and relationships 
needed to enhance a cooperative and collaborative approach. I will 
assess the STRATCOM organizational structure and work to streamline 
processes and enhance flexibility, effectiveness and efficiency.
    Question. What are your priorities for the U.S. Strategic Command?
    Answer. The first priority is to provide a safe, secure and 
effective strategic nuclear force providing strategic deterrence for 
the United States and its allies. STRATCOM has a unique responsibility 
regarding the country's deterrent force in setting requirements and 
translating national guidance into operational readiness. Second, 
ongoing combat operations require many of the capabilities provided by 
STRATCOM and, if confirmed, I will consult with the Commander, U.S. 
Central Command and the other combatant commanders to provide 
capabilities for today's conflict. Third, in line with the new National 
Space Policy, STRATCOM must preserve U.S. access to space and freedom 
of action in space by improving awareness and providing resilient 
capabilities for the joint fight. Fourth, relationships across Federal 
agencies with cyberspace responsibilities need to be defined to enhance 
the Nation's cyber security and support to joint operations.
                           strategic threats
    Question. In your view, what are the most serious strategic threats 
facing the United States today?
    Answer. As repeatedly stated by administration leaders, the pursuit 
of nuclear weapons by violent extremist groups and the proliferation of 
nuclear weapons technology to additional states are the greatest 
strategic threats to the United States. Beyond this is the immense 
challenge of defining strategic relationships to ensure stability 
involving new and emerging powers. Also, the pace of technology--
especially in the realms of space and cyberspace--is so rapid it could 
outpace our ability to maintain our strategic edge. Finally, we are 
faced with ever changing traditional and nontraditional threats that 
pose serious consequences to U.S. global interests. Some of these 
threats--such as anti-access/area denial weapons and strategies--are 
understood and the United States is addressing them, others are not as 
well understood or acknowledged and will take time to address.
    Question. What future strategic threats should the United States 
prepare for?
    Answer. Our potential adversaries have studied the U.S. way of 
warfare and are actively developing asymmetric responses. We will need 
flexible and adaptive capabilities to respond to these unknown 
abilities.
                    u.s. strategic command missions
    Question. In an overarching sense, how do you define the U.S. 
Strategic Command mission?
    Answer. STRATCOM promotes global security for the United States and 
its interests through strategic deterrence, ensuring U.S. freedom of 
action in space and cyberspace and through dedicated planning, advocacy 
and operational execution efforts to advance our warfighting 
priorities.
    Question. U.S. Strategic Command has absorbed multiple new missions 
since its creation, with the most recent addition being the 
establishment of the Cyber Command, as a sub-unified command of the 
Strategic Command.
    How successful has U.S. Strategic Command been at integrating these 
new missions and acquiring the expertise needed to perform them?
    Answer. My sense is that STRATCOM is on track with integrating 
mature missions, like space, while emerging missions, like cyberspace 
and missile defense, continue to advance. There is still more to be 
done among all the Services, and recruiting, training and retaining the 
personnel with the right expertise is very important. If confirmed, I 
will move quickly to assess the scope of all mission areas, integration 
and expertise, and take appropriate action as needed.
    Question. What organizational challenges remain at U.S. Strategic 
Command related to these new missions? Specifically, what additional 
work, if any, remains to be done and what expertise, if any, needs to 
be acquired for these new missions?
    Answer. Cyberspace capabilities and capacity are still maturing 
across DOD and the national security enterprise. If confirmed, I will 
assess the status of capabilities and determine the proper course of 
action to align personnel and resources to address the issues.
    Question. If confirmed, would you recommend or support any changes 
in the missions currently assigned to U.S. Strategic Command? If so, 
what changes would you recommend?
    Answer. Not at this time. As my understanding of the missions 
evolved and integration matured, I would assess command mission 
effectiveness and recommend changes as appropriate.
    Question. Are you aware of any additional new missions that are 
being contemplated for the Strategic Command?
    Answer. No. I am not aware of any new missions being considered for 
Strategic Command.
                              organization
    Question. In addition to the Cyber-Command, the Command is 
organized into a series of joint functional component commands that 
correspond to the mission areas of the Strategic Command.
    If confirmed, would you anticipate maintaining or modifying this 
structure?
    Answer. I would not anticipate any immediate changes; however, as 
relationships across Federal agencies are defined and cyberspace 
capabilities are matured, there may be a need to make organizational 
changes. It is important to keep a flexible organizational structure 
that is capable of responding to a constantly changing threat 
environment and technology advances.
                       ballistic missile defense
    Question. How do you view the roles and responsibilities of the 
Commander, U.S. Strategic Command, related to ballistic missile 
defense?
    Answer. The UCP charges STRATCOM with responsibilities for 
synchronizing planning for global missile defense, including 
coordinating global missile defense operations support and developing 
and advocating for missile defense characteristics and capabilities 
desired by combatant commanders. If confirmed, I will ensure STRATCOM 
and its Joint Functional Component Command for Integrated Missile 
Defense (JFCC-IMD) continue their close working relationship with MDA, 
the geographic combatant commanders, and Services to integrate 
capabilities across combatant command boundaries and to serve as the 
Joint Functional Manager for global force management of BMD forces.
    Question. What do you believe is the appropriate function of the 
Joint Functional Component Command for Integrated Missile Defense?
    Answer. JFCC-IMD's mission is to synchronize missile defense 
planning, conduct BMD operations support, and advocate for missile 
defense capabilities, in support of STRATCOM, other combatant commands, 
the Services, and appropriate U.S. Government agencies, to deter and 
defend the United States, deployed forces, and its allies against 
ballistic missile attacks. In addition, JFCC-IMD serves as the MDA 
counterpart to represent warfighter equities in the BMD development and 
integrates BMD test, training, and exercise activities. If confirmed, I 
look forward to reviewing the current activities of JFCC-IMD to ensure 
that this is the most appropriate function for today's national 
security environment.
    Question. If confirmed, would you recommend or support any changes 
in the authorities of Commander, U.S. Strategic Command, as they relate 
to ballistic missile defense?
    Answer. As of today, I would not make any changes. If confirmed, I 
will continue the close working relationships with the combatant 
commanders and the Missile Defense Agency and make recommendations to 
the Secretary of Defense regarding the appropriate authorities to 
support the defense of the United States and its allies.
    Question. If confirmed, what role would you anticipate playing in 
the assessment of the military utility of U.S. ballistic missile 
defenses against short-, medium-, intermediate-, and long-range 
ballistic missiles?
    Answer. In response to UCP 05 and DODD 5134.09 guidance, STRATCOM 
conducted and reported a Military Utility Assessment of the Ballistic 
Missile Defense System (BMDS) from 2006 to 2010. The intent of the MUA 
is to conduct assess the utility of the delivered capability--which is 
being replaced by the Operational Readiness & Acceptance (OR&A) process 
to formalize the acceptance of the delivered capability based on their 
operational utility. We are now working on the Global IAMD Assessment 
as a companion document to the OR&A to define operational risks 
associated with BMD operations.
    Question. If confirmed, what role would you anticipate playing in 
representing and advocating for the views and needs of the combatant 
commanders for missile defense capabilities, and how do you believe 
that warfighter perspective should inform our missile defense program?
    Answer. The Ballistic Missile Defense (BMD) Program exists to meet 
the limited defense of the United States and the theater defense needs 
of combatant commanders. STRATCOM sponsors the missile defense 
Warfighter Involvement Process to capture and articulate warfighter 
capability needs to inform the BMD program development. STRATCOM also 
manages the development of the Global Integrated Air and Missile 
Defense Assessment to articulate combatant commanders' operational 
risks that must be remedied in the BMD development. If confirmed, I 
will consult fellow combatant commanders and advocate for their mission 
needs, always mindful of the joint warfighter.
    Question. Please describe your view of the appropriate roles for 
the Joint Staff and the Missile Defense Executive Board in guiding 
decisions on the development, acquisition, and deployment of effective 
missile defense capabilities.
    Answer. The Joint Staff is responsible for defining required 
systems interoperability and operational architectures while validating 
joint theater missile defense capabilities through both simulation and 
technology demonstrations. The role of the Missile Defense Executive 
Board is to provide oversight and guidance in a collaborative mode 
involving all missile defense stakeholders in DOD and other agencies 
and departments. Important considerations for both entities include the 
necessary transition of tested systems from MDA to a military Service 
to be organized, trained, and equipped for eventual combatant command 
employment.
    Question. Do you agree that any ballisic missile defense systems 
that are deployed must be operationally effective and cost-effective?
    Answer. Yes. The joint warfighter requires fielded systems with 
military utility. I agree with the Secretary of Defense Ballistic 
Missile Defense Report which established metrics to measure ballistic 
missile defense systems cost effectiveness through comparison with 
available options, affordability, and comparison of incurred vice 
avoided costs.
    Question. Do you agree that ballistic missile defense flight tests 
need to be operationally realistic, and that operational testing is 
necessary, in order to demonstrate the capabilities of our systems and 
provide confidence that they will work effectively?
    Answer. I agree with the Missile Defense Agency testing approach 
outlined in the Integrated Master Test Plan that the tests will be 
conducted as operationally realistically as possible, exercising 
Warfighter Tactics, Techniques, and Procedures against operationally 
realistic threats. If confirmed, I will support this approach and 
assess the capabilities of ballistic missile defense systems.
    Question. What are your views on the relationship between ballistic 
missile defenses and nuclear deterrence?
    Answer. Ballistic missile defenses protect the United States 
against the threat of a limited intercontinental ballistic missile 
(ICBM) attack by a regional actor such as North Korea or Iran. Through 
deployment of limited defenses, the United States seeks to dissuade 
such states from developing an ICBM, deter them from using an ICBM if 
they develop or acquire such a capability, and defeat an ICBM attack by 
such states should deterrence fail denying them the benefits of 
possessing or using such systems. Ballistic missile defenses will also 
defend U.S. deployed forces from regional missile threats while also 
protecting our allies and partners and enabling them to defend 
themselves. Present plans for missile defense do not contemplate 
protection of the United States against large scale nuclear strikes. 
The U.S. strategic nuclear deterrent force of ICBMs, bombers and 
ballistic missile submarines will remain the primary deterrent of 
nuclear attacks against the United States, our allies, and partners.
    Question. Do you support the policies and priorities stated in the 
Ballistic Missile Defense Review report of February 2010?
    Answer. I support the current Ballistic Missile Defense policies 
and priorities.
    Question. Do you support the homeland ballistic missile defense 
initiatives announced by Secretary Hagel on March 15, 2013, including 
the planned deployment of 14 additional Ground-Based Interceptors 
(GBIs) in Alaska?
    Answer. Yes. I support all initiatives. Of note, the additional 14 
GBIs in Alaska will add capacity to U.S. Homeland defense against new 
and evolving adversary ICBM capabilities. Another important initiative 
is the deployment of an additional AN/TPY-2 radar into the PACOM area 
of operations which will also improve our capabilities to defend the 
United States while also enhancing regional BMD.
    Question. Do you support proceeding with the Environmental Impact 
Statement (EIS) process required by section 227 of the National Defense 
Authorization Act for Fiscal Year 2013 to inform future decisions about 
deployment of a possible additional homeland ballistic missile defense 
site in the United States, in case the President determines to proceed 
with such an additional deployment?
    Answer. Yes. With the restructuring of the SM-3 Block IIB program, 
continuing to explore the possibility of another CONUS interceptor site 
is a prudent measure. The completion of the EIS will reduce the 
timeline to implement this option should such a decision be made.
    Question. Do you agree with the Chairman and Vice Chairman of the 
Joint Chiefs of Staff that additional analysis is needed, including 
analysis of the missile threat from Iran, before making a decision on 
whether to deploy such an additional missile defense site in the 
future?
    Answer. Yes. We will need to carefully consider the threat to 
clearly understand the potential operational benefits that can be 
realized for the associated costs of enacting such an option. While an 
additional missile defense site provides operational utility, the cost 
should also be carefully considered, as well as the warfighter's 
priority to improve the sensor capability.
    Question. Do you believe that it may be possible to assess the 
advisability and feasibility of deploying an additional homeland 
ballistic missile defense site before the EIS is completed?
    Answer. I believe that the Department of Defense can conduct 
preliminary assessments in advance of an EIS. STRATCOM and U.S. 
Northern Command are assisting the Missile Defense Agency with such 
preliminary assessments in compliance with National Defense 
Authorization Act direction. We would be more confident in the 
assessments with an EIS completed.
    Question. Do you agree with the Director of the Missile Defense 
Agency and the Commander of the Joint Functional Component Command for 
Integrated Missile Defense on the importance of enhancing our missile 
defense sensor capabilities to improve discrimination and kill 
assessment for homeland ballistic missile defense?
    Answer. Yes. I agree.
    Question. Do you agree there is no significant funding in the 
fiscal year 2014 Presidential Budget request for the foregoing 
activities?
    Answer. There is substantial funding in Missile Defense Agency's 
fiscal year 2014 budget request to continue to research, develop and 
improve sensor and discrimination capabilities, however I agree there 
is no significant funding contained in the budget to acquire any 
additional sensors. Additionally, a study has been initiated to 
determine how best to support future sensor requirements and Missile 
Defense Agency is exploring technologies to improve the capabilities of 
ground, air, and space sensors.
    Question. Do you support the Phased Adaptive Approach to missile 
defense in Europe (EPAA), and do you believe this approach will provide 
a timely and effective capability to address existing and emerging 
Iranian ballistic missile threats to Europe?
    Answer. Yes. The work is ongoing and, if confirmed, I will continue 
to assess our progress and make recommendations to the Secretary of 
Defense.
    Question. What capability was lost with the decision to cancel 
Phase IV of the EPAA, and how does it compare to the capability of 
deploying 14 additional GBIs in Alaska by 2017?
    Answer. The cancellation of EPAA Phase IV resulted in the potential 
loss of early engagement opportunities (i.e. Defense in Depth) for 
Iranian ICBM threats to the United States. Deploying an additional 14 
GBIs to Alaska will add capacity to U.S. Homeland defense.
    Question. What role do you believe Strategic Command should play in 
the development and implementation of the Phased Adaptive Approach to 
missile defense in Europe and other regions?
    Answer. STRATCOM's role is to synchronize global missile defense 
plans, coordinate global missile defense operations support, and 
through the JFCC IMD, act as the Joint Functional Manager for global 
force management of missile defense capabilities.
    Question. Do you believe it is in our interest to cooperate with 
Russia on ballistic missile defense, including the possibility of 
sharing radar early warning data?
    Answer. Yes. To quote the BMDR, ``The United States will also 
continue in its efforts to establish a cooperative BMD relationship 
with Russia. . . . The administration is committed to substantive and 
sustained dialogue with the leadership of Russia on U.S. missile 
defenses and their roles in different regions. . . . Our goals are to 
enlist Russia in an new structure of deterrence that addresses the 
emerging challenges to international peace and security posed by a 
small number of states seeking illicit capabilities.''
    What do you believe are the most promising opportunities to work 
collaboratively with Russia to address emerging ballistic missile 
threats?
    Answer. As agreed by President Obama and President Medvedev at the 
July 2009 Moscow Summit, the most promising opportunity to work with 
Russia is in the joint assessment of the ballistic missile threat. If 
the Russians are willing, open and transparent bilateral or 
multilateral wargames or exercises, and sharing of early warning 
information are also options that may lead to a better relationship 
with Russia.
                             cyber security
    Question. What are your priorities for the U.S. Cyber Command?
    Answer. Our reliance on cyber capabilities, the many and varied 
threats, and the rapid rate of technological change all demand we place 
an initial and enduring focus on defense of our information networks. 
Priorities beyond defense include assuring the warfighting mission, 
strengthening and expanding partnerships in the domain, building 
capacity and capability to conduct full-spectrum cyberspace operations 
and developing processes to integrate cyberspace capabilities into 
combatant command plans operations and across DOD.
    Question. In your view, what are the most important unmet 
priorities for the development and deployment of cyber security tools 
and capabilities?
    Answer. U.S. Strategic Command, as a global combatant command, is 
in a unique position to favorably influence two essential priorities in 
this area. The first is to advance the development of a multi-Service 
cadre of cyber professionals, with emphasis on technical and tactical 
competence. This includes continuous training and education and focused 
career path development. The second is to accelerate the fielding of 
shared cyber situational awareness tools, taking advantage of emerging 
technologies to know friendly and threat activity within the network 
while understanding intent; and display and disseminate that 
information in an operationally relevant manner.
    Question. If confirmed, what role will you play in establishing 
policy for U.S. Cyber Command?
    Answer. If confirmed, I will exercise combatant command over U.S. 
Cyber Command, engage and advise senior leaders within the Department 
of Defense, Federal agencies, and with Members of Congress to advocate 
for the appropriate policies regarding cyberspace operations.
    Question. What are your views on the issue of elevating U.S. Cyber 
Command to a full unified command, including the timetable for 
elevating the Command?
    Answer. I believe the current command relationship is working. 
However, if a decision is made to make U.S. Cyber Command a unified 
command, we should not break the current dual-hatted relationship 
between the National Security Agency and U.S. Cyber Command. This 
relationship is central to mission success.
                                 space
    Question. What is your view on the responsiveness of current space 
systems to meet warfighter needs and what are the opportunities for the 
Operationally Response Space program to meet military and other space 
requirements?
    Answer. National Security Space systems are responsive to 
warfighters' needs. As the speed of warfare increases and military 
decision cycles decrease, space systems need to continue to evolve in 
their ability to deliver capability sooner. The increasingly congested, 
contested, and competitive nature of space will require continual 
improvements in the responsiveness and resilience of our space 
infrastructure. The Operationally Responsive Space initiative is one 
tool at our disposal to meet urgent combatant command needs or leverage 
developed technology to meet anticipated warfighter needs.
    Question. What is your view of the ability of DOD to develop and 
deploy space systems in a cost-effective and timely manner?
    Answer. DOD has worked extensively to reverse troubling acquisition 
trends. Significant strides are being made with a concentration on 
program stability, increasing the quantity and quality of the 
acquisition workforce and strengthening the requirements process to 
allow for incremental system development and increased technology 
maturation. Architectural work to conceptualize the space enterprise of 
the future is increasingly considering factors such as resilience, 
affordability, and responsiveness in addition to the historical 
emphasis on performance and reliability. This groundwork should 
significantly improve our ability to field future space capabilities 
that are both cost-effective and timely.
    Question. What steps, if any, do you believe might be necessary to 
improve the responsiveness of current space systems?
    Answer. Responsiveness, as measured by the speed, capacity and 
fusion of data to the warfighter, are important in the evolution of 
warfare to counter adaptive adversaries. Providing the warfighter with 
dynamic situational awareness, such as for tailored Intelligence, 
Surveillance and Reconnaissance, while optimizing stressed 
communications and networks, will increase the value of current space 
systems. Lowering the cost of space systems and launch systems is a key 
element for improving responsiveness. Low cost space solutions permit 
us to move rapidly, practice risk-management vs risk-avoidance, and 
consequently have the ability to respond to immediate needs.
    Question. In your view, what are the most important unmet 
requirements for space systems?
    Answer. Guaranteeing mission assurance, which includes resilience 
and space protection, is critical. Central to this is developing 
adequate Space Situational Awareness in a domain that is increasingly 
competitive, congested and contested. Geographic combatant commanders 
require a sustained emphasis on meeting Intelligence, Surveillance and 
Reconnaissance needs and satisfying increased military satellite 
communication requirements in support of global military operations.
    Question. Do you believe any urgent needs or capability gaps exist? 
If so, please specify in detail.
    Answer. Urgent needs and capability gaps will continue to exist in 
a constantly changing battlespace and a fiscally constrained 
environment. Persistent ISR and increasing satellite communications 
bandwidth are continuing needs identified by the regional combatant 
commands. If confirmed, I will work through the Joint Staff and Service 
components to mitigate capability gaps and respond to combatant 
commanders' urgent needs.
    Question. What do you believe should be done to meet those 
requirements, and what space programs should be accorded highest 
priority?
    Answer. If confirmed, I will articulate national and joint 
warfighter imperatives, including a judicious blend of alliances, 
partnerships and commercial relationships. I will also press for 
improved space situational awareness and ensure the highest priority is 
accorded to meeting continuing needs for assured communications, 
uninterrupted missile warning, persistent positioning, navigation, and 
timing and overhead Intelligence, Surveillance and Reconnaissance 
(ISR). Additionally, I will advocate through the Services for greater 
investments in scientific and technical advancement to maintain our 
space systems advantages well into the future.
    Question. How important, in your view, is persistent surveillance, 
and what programs do you believe are best able to provide this 
capability?
    Answer. Combatant commanders identify persistent surveillance as an 
enduring priority needed to detect, collect, disseminate, and 
characterize activity in the battlespace. Space, airborne, maritime, 
and terrestrial programs contribute to ISR, but where persistent 
surveillance can be achieved is through integration of sensors on 
multiple platforms, with space-based ISR providing unique contributions 
over deep and denied areas.
    Question. What is your view on the effectiveness of efforts to 
cooperate with the commercial space sector to improve space situational 
awareness and how could this effort be expanded and made more 
successful?
    Answer. The Space Situational Awareness (SSA) Sharing Program at 
U.S. Strategic Command has been the lynchpin of international 
engagements with spacefaring nations and industry. In 2012, STRATCOM 
provided 10,000 satellite conjunction warnings. This high fidelity 
information was instrumental in ensuring spaceflight safety for over 
one thousand active satellites orbiting the Earth. Today, STRATCOM 
supplies SSA information through SSA Sharing Agreements with 38 
commercial firms. This year, STRATCOM negotiated and concluded the 
first international SSA Sharing Agreements with Japan and Australia. 
These agreements are the first in what will be a series of 
international SSA Sharing Agreements with our partners and allies
    These ongoing endeavors result in improved data-exchange between 
U.S. Strategic Command, the commercial sector and space faring nations 
and, as such, reduces the risk of collisions in space leading to a 
safer space environment.
    Question. What are your views on disaggregation of space sensors 
systems and has your experience with SBIRS HEO-1 and HEO-2 affected 
that?
    Answer. Disaggregation of space systems should consider cost, 
schedule, performance and resiliency across a range of threat 
environments. We need to do a better job of leveraging the inherent 
resiliency embedded within our current systems. The Department is 
beginning early analysis to understand the strengths, weaknesses, 
opportunities, and threats of disaggregated architectures which will 
provide a basis for investment decisions.
    Question. In the National Defense Authorization Act for Fiscal Year 
2004, Congress approved a national policy to support two space launch 
vehicles, or families of launch vehicles, capable of launching national 
security payloads into space. The two launch vehicles have been 
combined into one company to provide launch services to the U.S. 
Government with the expectation that this would improve both the 
efficiency of space launch and reduce the cost.
    What are your expectations with respect to future space launch 
efficiencies and cost savings?
    Answer. Low cost launch is an important enabler for an entire 
emerging class of space capabilities. In the experimental/demonstration 
realm (programs typically executed by the Defense Advanced Research 
Projects Agency, Air Force Research Laboratory, Naval Research 
Laboratory, or Space and Missile Defense Command) low cost launch 
provides access to space for S&T missions requiring very tight budgets. 
These missions demonstrate key technologies or concepts of operations 
that lead to more effective operational capabilities in the future. In 
the operational realm, low-cost launch enables one-off responsive space 
systems (e.g. ORS-1 satellite providing ISR for U.S. Central Command), 
emerging operational cubesats/nanosats, and perhaps even some alternate 
space architectures currently under consideration.
    Question. In the next several years the rate of space launches is 
expected to increase, what new approaches to space launch, in your 
view, should be implemented to handle this increased rate of launch?
    Answer. Recent Service-led improvements in the range manifest and 
scheduling process, such as the concept of matching boosters with 
satellites when there is a higher confidence of being ready for launch, 
will maximize the probability of meeting launch demands consistent with 
national priorities.
    Question. What, in your view, should the United States do in the 
future, and what steps would you take if confirmed, to ensure continued 
reliable access to space?
    Answer. I will continue to advocate for cooperative development of 
launch and range transformation initiatives by and between the 
Services, NRO, and the National Aeronautics and Space Administration 
(NASA).
    Question. Do you believe that the Nation should sustain redundant 
space launch capabilities?
    Answer. Robust access to space is a national imperative requiring 
flexible capability to ensure continuity of access. Additional service 
and commercial capabilities are emerging. If confirmed, I will continue 
to review the viability of these approaches and advocate appropriately 
assuring the Nation's access to space.
    Question. What do you see as the greatest problem implementing a 
new entrant strategy?
    Answer. I am confident the Air Force, NRO, and NASA will support 
their Launch System Certification agreement with new launch entrants. 
The certification process will ensure all launch providers and all 
proposed launch vehicle configurations meet rigorous standards of 
demonstrated flight reliability, process controls, design margins, and 
mission assurance in order to receive non-recurring certification.
    Question. Recent decisions, and probably future decisions, about 
launch capabilities made by the National Aeronautics and Space 
Administration will impact national security space launch cost and 
capacity.
    What, in your view, should the Strategic Command do to coordinate 
civil and national security space launch?
    Answer. Assured access to space is a national imperative that, in a 
fiscally constrained environment, could benefit from a whole-of-
government approach. Strategic Command should continue its 
participation in the development of a national space transportation 
policy.
    Question. In your view, what are the most significant challenges 
that the United States faces in military and national security space 
programs and policy?
    Answer. Our challenges are rooted in the increasingly congested, 
contested and competitive nature of the space domain. If confirmed, 
I'll continue to address the following top challenges: (1) threats to 
U.S space capabilities; (2) threats from adversary space capabilities 
to U.S. military forces; and (3) maintaining our national security 
space programs in a difficult budget environment.
    Question. Training of U.S. military personnel to understand and to 
incorporate space assets into all aspects of operations is critically 
important to future military success.
    While much has been done to incorporate space assets into all 
aspects of military operations, in your view are there additional steps 
that should be taken to address this challenge?
    Answer. The availability of space capabilities to Joint Force 
Commanders is essential towards the United States' ability to win our 
Nation's conflicts. We are now faced with an era of fiscal uncertainty 
that causes us to reevaluate how we incorporate space assets into the 
fight. As we look to partner with our allies and leverage their 
capabilities through combined space operations, we must reassess our 
disclosure policies to ensure each side has the ability to capitalize 
on the partnership.
    Question. What role does the National Security Space Institute play 
in the training process, and how could their training programs be 
improved?
    Answer. Since its establishment in 2004, the National Security 
Space Institute (NSSI) has been an important part of the Space 
Professional Development Program and the advancement of space expertise 
across the Department of Defense. In 2012, STRATCOM conducted a Joint 
Space Individual Training and Education Needs Assessment to analyze 
joint space training and education requirements of personnel performing 
joint space missions. This assessment identified some areas where there 
are shortfalls in the current space training and education programs. 
Recommended solutions incorporate both joint and service authorities, 
personnel systems, and education and training refinements. I anticipate 
the NSSI will be one of the key organizations responsible for 
implementing the training and education recommendations to meet space 
professional needs across the Department of Defense.
    Question. What, in your view, are the priorities for improving 
space situational awareness?
    Answer. To improve space situational awareness, we should 
accomplish the following. First, the United States must have the 
ability to quickly characterize events (natural and manmade) that 
threaten our space assets. Second, we must ensure we have improved 
capabilities to detect, track, and identify space objects. Finally, we 
must invest in capabilities and partnerships that increase our 
resilience while also maintaining our leadership.
    Question. What programs and policies, in your view, should be 
changed or added to ensure adequate space situational awareness?
    Answer. The legacy space surveillance network is nearing its 
maximum capacity to detect, track, and identify space objects. We must 
invest in new capabilities that meet the needs of today's contested and 
congested space environment. Furthermore, recognizing the utility in 
incorporating other non-U.S. systems, we must establish partnerships 
which allow access to space surveillance data. Finally, the systems 
responsible for processing this data are in dire need of modernization. 
Capabilities such as the Space Fence and the Joint Space Operations 
Center Mission System will help the United States meet tomorrow's 
challenges.
    Question. What are your views on how military and national security 
space should and could be better integrated?
    Answer. Significant synergy exists in those common, underlying 
``enablers'' such as the space industrial base, research and 
development, science and technology and the space workforce. My 
understanding is that we have made significant progress in integrating 
these enablers to include the Intelligence Community with the standup 
of the Space Security and Defense Program. If confirmed, I will 
continue advocating along these lines to best meet the needs of the 
Nation.
    Question. In your view, what role should the National Security 
Space Office play in integrating military and national security space?
    Answer. I understand that over the past 2 years, there has been a 
reorganization of the management and coordination of the national 
security space enterprise, including the establishment of the Defense 
Space Council, and the re-validation of the Secretary of the Air Force 
as the Executive Agent for Space. This reorganization has had a 
positive impact on government-wide coordination of space activities.
    If confirmed, I will continue to foster close working relationships 
amongst fellow members of the Defense Space Council to facilitate unity 
of effort across the space enterprise.
    Question. In your view, should the role of the National Security 
Space Office be modified or expanded in any way?
    Answer. I understand that over the past 2 years, there has been a 
reorganization of the management and coordination of the national 
security space enterprise, including the establishment of the Defense 
Space Council, and the revalidation of the Secretary of the Air Force 
as the Executive Agent for Space. This reorganization has had a 
positive impact on government-wide coordination of space activities.
    If confirmed, I will continue to foster close working relationships 
amongst fellow members of the Defense Space Council to facilitate unity 
of effort across the space enterprise.
    Question. What do you see as the greatest challenges in the area of 
counter space?
    Answer. The greatest challenge is maintaining comprehensive real-
time/near-real-time space situational awareness (SSA) to assure the 
earliest possible detection of a threat and enable accurate attribution 
of actions against our space assets. Successfully meeting this 
challenge will enable us to take timely and effective actions to 
protect our assets and clearly identify the source of the threat to 
allow an appropriate whole-of-government response to those responsible.
                         cruise missile defense
    Question. In your view, how serious is the vulnerability of our 
Nation and deployed military forces to the cruise missile threat?
    Answer. Cruise missiles represent a credible threat to our Nation 
and forces abroad.
    Question. What role do you believe U.S. Strategic Command should 
play in the cruise missile defense of our Nation and our deployed 
military forces?
    Answer. STRATCOM is responsible for synchronizing planning for 
global missile defense to include coordinating global missile defense 
operations support and advocating for missile defense capabilities. 
Additionally, as the Air and Missile Defense Integrating Authority, 
STRATCOM should continue advocating for cruise missile defense 
capabilities desired by the warfighters.
                          prompt global strike
    Question. In your view, how adequate are current efforts to 
establish requirements and develop a prompt global strike capability?
    Answer. Current efforts are sufficient. The Joint Requirements 
Oversight Council (JROC) recently revalidated the prompt strike initial 
capabilities document and requirements. The Department continues to 
make progress through investments in the development and testing of 
prompt strike capabilities.
    Question. Do you believe that adequate analysis is being conducted 
to determine whether a prompt global strike capability should be 
launched from air, land, maritime surface or subsurface platforms, or a 
combination thereof?
    Answer. Yes. the Air Force completed a comprehensive Analysis of 
Alternatives (AOA) that considered a range of prompt strike deployment 
options. In addition, the JROC recently directed a review of 
technology, operational concepts, and costs as part of an independent 
review or AOA update. Current development efforts are aimed at 
technology solutions that could be fielded in a range of operational 
concepts.
                           nuclear deterrence
    Question. If confirmed as Commander of the U.S. Strategic Command, 
you would be involved in implementing the new Nuclear Posture Review 
and the reductions under the New START treaty.
    Do you support the New START treaty?
    Answer. Yes. New START provides the United States with insight into 
Russian strategic nuclear forces. The treaty has a verification regime 
that is effective, robust, enhances transparency, and builds confidence 
with Russia.
    Question. Do you support the recent revision to our nuclear 
employment strategy?
    Answer. Yes. the objectives support deterrence of adversaries and 
assurance of our allies and partners.
    Question. Do you believe we need a fleet of 12 ballistic submarines 
to replace the Ohio-class submarines?
    Answer. Yes. based on current and future projected strategic 
environments, 12 SSBNs is the minimum required to meet deterrence 
mission requirements.
    Question. What in your view are the most pressing modernization 
requirements for the Minuteman III ICBM, following completion of the 
current upgrades?
    Answer. The Air Force is conducting sustainment programs to take 
the Minuteman III ICBM through 2030 as directed by Congress. I will 
advocate for sustaining planned life extension programs, including 
arming, firing and fuzing upgrades, guidance modernization, and support 
equipment replacements.
    Question. Do you support the development and fielding of a follow-
on program to the Minuteman III ICBM? If so, when will a decision be 
necessary for pursuing the development of a follow on ICBM?
    Answer. Yes. land-based ICBMs are an integral and enduring part of 
the nuclear triad, and the Air Force is scheduled to begin an AOA this 
year. Following completion of the AOA, we will work closely with the 
Air Force to develop a resource strategy to recapitalize our ICBM force 
beyond 2030.
    Question. Do you support and intend to advocate for the 
modernization of all legs of the triad of nuclear delivery vehicles?
    Answer. Yes. modernization of all legs of the triad is essential 
given our aging systems. The triad's complementary capabilities 
encourage restraint, deny benefits and, if deterrence fails, impose 
costs on adversaries. The triad also provides the United States 
resiliency and flexibility in the event of technical or geopolitical 
surprise.
    Question. In your view, is there a relationship between U.S. 
nuclear deterrence policy and nonproliferation policy? If so, please 
describe the relationship.
    Answer. Yes. there is a relationship. By extending our deterrent to 
other nations we provide them an alternative to developing their own 
nuclear capabilities to meet their security needs. Thus, our extended 
deterrent contributes to meeting our nonproliferation policy goals.
    Question. What are your views on nuclear command and control?
    Answer. Today's Nuclear Command and Control systems underpin 
strategic deterrence and they provide an assured capability for the 
President to execute nuclear forces under any scenario. Current 
portions of our architecture are largely a product of the Cold War 
resulting in some obsolescent and aging elements to the infrastructure, 
including some elements that are passing their end of life. Despite the 
growing age of the infrastructure, we are fully capable in executing 
our nuclear mission. However, to ensure this capability remains viable 
in the future, continued investment and modernization of the Nuclear 
Command, Control, and Communications (NC3) architecture is necessary. 
Current emphasis is required on space-based detection, conferencing, 
and force direction.
    Question. How will you advocate modernizing our nuclear command and 
control and what aspects in particular in light of the new nuclear 
employment strategy?
    Answer. Today's NC3 systems provide assured and resilient 
capabilities for the President to execute nuclear forces under any 
scenario through all phases of conflict. To ensure this capability 
remains viable in the future, continued investment and modernization of 
the NC3 architecture is necessary. Current emphasis is required on 
space-based detection, conferencing, and force direction.
    Continued investment for NC3 capabilities, a robust net-centric C2 
infrastructure, and insertion of new technologies (such as Internet 
Protocol-based solutions) will maintain senior leaders' ability to 
respond deliberately and appropriately to any situation.
    We have set a course to modernize NC3 systems to enable secure, 
enduring, and continuous communications with respect to the current 
threat environment, as well as emerging threats we are likely to 
confront (where man-made or natural).
    Question. What is your view of the significance of non-strategic 
nuclear weapons in the nuclear balance between the United States and 
Russia?
    Answer. I believe it is important to consider both strategic and 
non-strategic weapons and their associated infrastructure when 
examining questions of nuclear balance between the United States and 
Russia. Further, we must consider the geo-strategic environment in 
which each country exists to better understand their force composition 
decisions and thus the implications for force balance.
    Question. Do you believe the U.S. Government understands today how 
to verify reductions in nonstrategic nuclear weapons?
    Answer. It depends on the nature of what is to be verified. The 
U.S. Government was able to verify the eliminations of non-strategic 
platforms made under the INF Treaty. Procedures to verify warhead 
eliminations, which have not yet been part of treaty, may require 
further study.
                        nuclear weapons council
    Question. If confirmed you would become a member of the Nuclear 
Weapons Council.
    What would your priorities be for the Nuclear Weapons Council 
(NWC)?
    Answer. My top priority is to continue to sustain and modernize the 
nuclear enterprise, including weapons, platforms and infrastructure. I 
support the NWC recently approved strategy and implementation plan for 
stockpile management and supporting elements.
    Question. What changes if any would you recommend to the 
organization, structure, or function of the NWC?
    Answer. None at this time. The NWC is composed of the appropriate 
members and assigned responsibilities to provide effective oversight of 
the nuclear weapons enterprise.
    Question. What role is the NWC playing or should it play in the 
discussion with respect to any future nuclear arms control treaties?
    Answer. NWC principals provide policy, military, and technical 
recommendations.
           maintaining a safe, secure and reliable stockpile
    Question. If confirmed you would play a major role, in conjunction 
with the National Nuclear Security Administration, to maintain the 
safety, security, and reliability of the U.S stockpile of nuclear 
weapons.
    What are your priorities for implementing that responsibility?
    Answer. My top priority is to ensure the stockpile remains safe, 
secure, and effective to support the Nation's deterrence missions. My 
priorities include providing an annual assessment of the stockpile's 
military effectiveness, establishing stockpile requirements and 
providing military advice on strategy and implementation plans for life 
extension programs and the nuclear industrial complex.
    Question. The Strategic Command is an integral part of the annual 
certification process for nuclear weapons.
    Would you recommend any changes in the Strategic Command's role in 
the annual process or the process generally?
    Answer. Not at this time. I will closely monitor this process and 
will recommend appropriate changes, if necessary.
                     stockpile stewardship program
    Question. What is your view of how well the Stockpile Stewardship 
Program is proceeding towards its goal of being able to continuously 
assess and annually certify the U.S. enduring nuclear weapons stockpile 
as safe, secure, and reliable, without the need for underground nuclear 
testing?
    Answer. The Stockpile Stewardship Program is meeting its goal of 
effectively and continuously assessing the nuclear weapon stockpile. It 
provides sufficient data and analysis to allow the annual certification 
of the stockpile without underground nuclear testing.
    Question. In your opinion, what are the biggest challenges for the 
Stockpile Stewardship Program?
    Answer. The Stockpile Stewardship Program's most significant 
challenge is sufficient and stable funding to ensure understanding of 
the stockpile as it ages, confidence in that understanding in the 
absence of underground nuclear testing, and timely responsiveness to 
technical issues that arise.
    Question. Do you believe that all nuclear weapon life extension 
methods, refurbishment, reuse, and replacement, should be given equal 
consideration?
    Answer. I support considering the full range of options as directed 
in the Nuclear Posture Review. Strong preference will be given to 
options for refurbishment or reuse. Replacement of nuclear components 
would be undertaken only if critical Stockpile Management Program goals 
could not otherwise be met, and if specifically authorized by the 
President and approved by Congress.
    Question. The administration is proposing overhauls of the B-61 
gravity bomb, and an interoperable warhead to provide for hedging 
between different legs of the triad.
    What are your greatest concerns with the B-61 life extension 
program?
    Answer. My greatest concern is the weapon remains safe, secure, and 
effective and capable of meeting its strategic and extended deterrence 
commitments. The current life extension program addresses the timely 
replacement of aging components. It is imperative that the program 
remains adequately funded and on schedule.
    Question. The National Nuclear Security Administration estimates 
the cost of the first version of the interoperable warhead will exceed 
$14 billion.
    Do you support evaluation of straight life extensions of the W-78 
and W-88 warheads if either the cost or technical issues with the 
interoperable warhead become too great?
    Answer. I support studying the technical feasibility and cost of an 
interoperable nuclear explosive package for the W78/88-1. Further, I 
believe that the W78-1 and W88-1 warhead options should be examined for 
comparative purposes, so an informed recommendation can be brought to 
the NWC.
               military-to-military cooperation programs
    Question. The U.S. Strategic Command has a long history of 
conducting military-to-military exchanges and discussions with its 
counterparts in Russia, but in recent years these exchanges and 
discussion have stopped for the most part.
    If confirmed, would you seek to continue or expand this dialogue?
    Answer. If confirmed, I would consult extensively with the 
Secretary of Defense, the State Department and the Commander, U.S. 
European Command to see what steps would be appropriate to engage 
Russia.
    Question. Would you seek to establish military-to-military programs 
to include other countries, such as China?
    Answer. If confirmed, I would consult extensively with the 
Secretary of Defense, the State Department and the Commander, U.S. 
Pacific Command to see what steps would be appropriate to engage China.
                     strategic forces and missions
    Question. During the Cold War, the primary mission for strategic 
forces was to deter the Soviet Union from using its nuclear weapons 
and, more broadly, to contribute to U.S. efforts to contain the Soviet 
Union. Strategic forces were therefore synonymous with nuclear forces. 
This isn't the case today, as the wide-ranging missions assigned to 
U.S. Strategic Command make clear.
    What, in your view, is the primary mission for U.S. Strategic 
Forces today and in the future?
    Answer. Our strategic forces include our Global Strike (nuclear and 
conventional), space, cyber, global intelligence, surveillance, 
reconnaissance and ballistic missile defense capabilities. Their 
primary missions are to assure allies and partners, deter potential 
adversaries and if necessary, defend against and defeat adversary 
attacks on the United States, our allies, and partners.
    Question. With the decline in numbers of U.S. and Russian strategic 
nuclear weapons, is it now more important to take into account non-
strategic nuclear weapons?
    Answer. Yes. Nuclear weapons regardless of their delivery method 
are important to consider.
    Question. Should we think differently about the use of strategic 
forces today?
    Answer. Yes. Strategic forces today are no longer just nuclear 
forces. They include our Global Strike (nuclear and conventional), 
space, cyber, global intelligence, surveillance, reconnaissance and 
ballistic missile defense capabilities. Thus our thinking about their 
use must be different.
    Question. Given the mission for strategic forces, as you define it, 
what capabilities are still needed to carry out that mission?
    Answer. Required strategic deterrence capabilities include warning, 
attribution, assured command and control, forces, weapons, and the 
infrastructure to sustain them. The Triad is the cornerstone of 
deterrence and strategic stability. Sustainment and recapitalization of 
strategic nuclear forces and stockpile, space, cyber, National Command 
and Control systems, and infrastructure are required to deter 
adversaries, assure allies and partners, and manage risk.
    Question. The nuclear weapons in Europe are under the command of 
the Commander of European Command.
    How would you plan to work with that command with respect to 
nuclear weapons security, and policy?
    Answer. If confirmed, I will consult with the Commander, U.S. 
European Command, to understand his needs and I will work with him to 
advocate for safe, secure and effective nuclear weapons to meet those 
needs.
                 nuclear weapons security and handling
    Question. What in your view are the most challenging aspects of 
maintaining security in the handling of nuclear weapons?
    Answer. Ensuring nuclear forces are secure from attack, physical 
damage, theft and misuse, and denying unauthorized access continues to 
be the standard for nuclear security, and if I am confirmed, this will 
be one of my top priorities. Our continuing challenge is to ensure our 
security forces are always provided the capabilities to detect, delay 
and defeat any adversary while capitalizing on the lessons learned from 
the past decade of conflict. At the core of this challenge is 
maintaining a culture of instant readiness in our strategic force 
personnel for a mission that has a low probability of execution, but 
only because they are ready in the deterrence role.
    Question. What role do you think the Strategic Command should play 
in ensuring that nuclear weapons are securely stored, transported, and 
handled when in control of the Military Services?
    Answer. As the combatant command responsible for all strategic 
nuclear forces and now accountable for the security of the U.S. Air 
Force's strategic nuclear resources, U.S. Strategic Command has an 
increased role in ensuring a safe, secure and effective nuclear 
deterrent. If confirmed, I will ensure our security forces continue to 
have the resources, guidance and training required to maintain a secure 
environment for our nuclear weapons.
                         science and technology
    Question. In the past, STRATCOM had a stand-alone Science and 
Technology (S&T) advisor--as other COCOMS currently have, but that role 
has been subsumed into other staff positions.
    If confirmed, what would be your views on reconstituting a STRATCOM 
Science and Technology advisor and if that is not necessary, what 
priorities would be assigned to that individual?
    Answer. This is something I plan to review if I am confirmed as the 
Commander of U.S. Strategic Command.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, U.S. Strategic 
Command?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                      u.s. cyber security strategy
    1. Senator Reed. Admiral Haney, does the Air-Sea Battle concept 
account for the very significant cyber threat to our command and 
control capabilities in the Asia-Pacific region?
    Admiral Haney. Yes, the Air-Sea Battle concept does incorporate and 
account for cyber threats in the Asia-Pacific region. While the 
Concept's title names only two of the warfighting domains, the Concept 
describes integrated operations across all five domains--air, land, 
sea, space, and cyberspace--to create advantages for U.S. Forces. In 
Air-Sea Battle, we must be capable of attack and defense in each 
warfighting domain.
    U.S. Cyber Command (CYBERCOM) is working diligently to ensure that 
the cyberspace component to Joint operations is prepared to conduct, 
integrate with, and support both offensive and defensive operations by 
any Service and in all domains. A significant aspect of CYBERCOM's work 
is the establishment of cyber mission and support teams specifically 
focused on understanding regional cyber threats and executing 
operations to defend our networks against these threats.

    2. Senator Reed. Admiral Haney, as Commander of U.S. Strategic 
Command (STRATCOM), is it your understanding that you would develop the 
strategy and operational plans to combat these cyber threats, not just 
in the Pacific but across all combatant commands?
    Admiral Haney. Yes, Commander, U.S. Strategic Command is tasked in 
the Unified Command Plan to exercise combatant command over U.S. Cyber 
Command and synchronize planning for cyberspace operations in 
coordination with other combatant commands, the Services, and as 
directed, appropriate U.S. Government agencies. This includes both 
offensive and defensive cyberspace operations, directing the Department 
of Defense network operations and defense, and providing defense 
support to civil authorities as directed.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                    missile defense of the homeland
    3. Senator Ayotte. Admiral Haney, do you agree that defending the 
Homeland against a limited long-range ballistic missile attack should 
be the first priority of the Missile Defense Agency (MDA)?
    Admiral Haney. Yes, the first priority of the MDA should be defense 
of the homeland against a limited long-range ballistic missile attack. 
The Ballistic Missile Defense Review clearly states this as the top 
priority.

    4. Senator Ayotte. Admiral Haney, will you work with the Director 
of MDA to ensure he has the funding to modernize the ground-based 
midcourse defense system and to increase testing?
    Admiral Haney. Yes, I will work with the Director of MDA to ensure 
adequate Research, Development, Test and Evaluation funding supports 
ground-based midcourse defense (GMD) system modernization and 
operationally realistic testing. I support MDA stockpile reliability 
and fleet upgrade activity plans and I also concur with current MDA 
flight test plans to conduct two GMD intercept tests in fiscal year 
2014 and one per year in each subsequent year.

                       east coast missile defense
    5. Senator Ayotte. Admiral Haney, in your responses to the advance 
policy questions you state, ``With the restructuring of the SM-3 Block 
IIB program, continuing to explore the possibility of another 
continental United States (CONUS) interceptor site is a prudent 
measure.''
    Why do you believe exploring a third CONUS interceptor site is a 
prudent measure?
    Admiral Haney. Missile defense is comprised of three major 
components: interceptors, sensors, and command and control. Exploring a 
third CONUS site focuses on the first element, interceptors, to include 
their location and potential battlespace. At the completion of the 
CONUS Interceptor Site Study we'll have a better understanding of the 
degree of potential capability/capacity a third site might offer as 
well as the necessary implementation and sustainment costs for the MDA 
and the Army. The study will provide a useful basis for evaluating a 
broad range of alternatives among and between all three missile defense 
components, particularly improved sensor discrimination.

    6. Senator Ayotte. Admiral Haney, what types of preliminary 
assessments are STRATCOM and U.S. Northern Command (NORTHCOM) 
conducting regarding an east coast missile defense site?
    Admiral Haney. STRATCOM and NORTHCOM are providing an operational 
perspective to a Missile Defense Agency study to identify at least 
three possible candidates for an additional CONUS interceptor site. We 
are also assessing potential added operational capability and capacity, 
level of risk reduction that could be achieved, and Service sustainment 
ability and cost requirements.

    7. Senator Ayotte. Admiral Haney, in light of the National Air and 
Space Intelligence Center's July report that concluded that ``Iran 
could develop and test an ICBM [Intercontinental Ballistic Missile] 
capable of reaching the United States by 2015'', would you agree with 
me that if we had an east coast site, particularly with the 
cancellation of the SM3 block 2B program, that it would provide 
additional battle space in response to an ICBM missile from Iran to the 
East Coast of the United States?
    Admiral Haney. Yes, an east coast site could potentially provide 
additional battle space against a limited ICBM launch from Iran. We'll 
know more once the CONUS Intercept Site Study is complete. While an 
additional missile defense site may provide operational utility, the 
most critical near-term priority is to improve sensor capabilities such 
as coverage and discrimination to maximize the operational utility of 
the current interceptor inventory. Additionally, consideration of cost 
versus operational utility and a clear understanding of the threat must 
be integrated into the decisionmaking process.

    8. Senator Ayotte. Admiral Haney, do you agree with the June 
Homeland Defense Hedging Policy and Strategy report to Congress that 
said, ``The addition of a new missile defense base in the Northeast or 
Upper Midwest would add battlespace to a potential engagement, allowing 
for additional decisionmaking time and supporting the future option to 
employ a Shoot-Assess-Shoot engagement strategy''?
    Admiral Haney. A new missile defense base in the Northeast or Upper 
Midwest could potentially expand the battlespace and allow for 
additional decisionmaking time. However, a future option to employ a 
Shoot-Assess-Shoot engagement strategy involves many more factors such 
as improvements in discrimination and reliability.

                           nuclear priorities
    9. Senator Ayotte. Admiral Haney, in 2012, the U.S. National 
Intelligence Council wrote: ``Nuclear ambitions in the United States 
and Russia over the last 20 years have evolved in opposite directions. 
Reducing the role of nuclear weapons in U.S. security strategy is a 
U.S. objective, while Russia is pursuing new concepts and capabilities 
for expanding the role of nuclear weapons in its security strategy. 
Other nuclear powers, such as Pakistan and potential aspirants Iran and 
North Korea, desire nuclear weapons as compensation for other security 
weaknesses.''
    What are the potential strategic implications of these divergent 
views?
    Admiral Haney. As stated in the 2010 Nuclear Posture Review (NPR), 
one of our key policy objectives is ``reducing the role of U.S. nuclear 
weapons in U.S. national security strategy'' to the fundamental role of 
deterring nuclear attacks. The NPR, however, stated there ``remains a 
narrow range of contingencies in which U.S. nuclear weapons may still 
play a role in deterring conventional or CBW attack against the United 
States or its allies and partners. The United States is therefore not 
prepared at the present time to adopt a universal policy that deterring 
nuclear attack is the sole purpose of nuclear weapons, but will work to 
establish conditions to which such a policy could be safely adopted.'' 
As some potential adversaries increase their reliance on nuclear 
weapons, we will continue to evaluate the role nuclear weapons in our 
own national security strategy. As long as we maintain sufficient safe, 
secure, and effective nuclear forces to deter nuclear attacks on the 
United States, its allies, and partners, the relative dependence of 
others on nuclear weapons should not alter the strategic balance.

    10. Senator Ayotte. Admiral Haney, how might this impact the 
relative balance of power between the United States and Russia?
    Admiral Haney. Whether nuclear threats emanate from Russia or any 
other nuclear power, the United States will retain a force structure 
appropriate to deter the employment of nuclear weapons and to control 
escalation in the event any aggressor chooses to cross the nuclear 
threshold. I do not believe the relative balance of power between the 
United States and Russia, will shift as long as we maintain sufficient, 
safe, secure, and effective nuclear forces.

    11. Senator Ayotte. Admiral Haney, how might allies, who depend on 
U.S. nuclear security guarantees, view this divergence?
    Admiral Haney. As our allies confront new security challenges, we 
must ensure the U.S. deterrent remains credible while demonstrating our 
ability and willingness to honor our extended deterrence commitments. 
Military investments, policies, force posture, and exercises serve to 
mitigate our allies' potential apprehension of divergent security 
policies. The B-2 demonstration flight in March 2013, for example, 
assured our South Korean partners because our mutual belief is it 
contributed to the deterrence of North Korean aggression.

                    nuclear deterrence and assurance
    12. Senator Ayotte. Admiral Haney, what is your view of the role of 
nuclear weapons in U.S. national security strategy?
    Admiral Haney. Nuclear weapons are the cornerstone of our 
military's deterrent force and underpin our national security strategy. 
The 2010 NPR states, ``The fundamental role of U.S. nuclear weapons is 
to deter nuclear attack on the United States, our allies, and 
partners.'' The NPR, however, acknowledges that it may be some time 
before we can reduce our reliance on nuclear weapons solely to this 
fundamental role. As a result, there remains a ``narrow range of 
contingencies in which U.S. nuclear weapons may still play a role in 
deterring a conventional or CBW attack against the United States, or 
its allies and partners.''

    13. Senator Ayotte. Admiral Haney, what would happen in the event 
our allies lost confidence in the credibility of the U.S. nuclear 
umbrella?
    Admiral Haney. In a worst case scenario, allies could take 
unilateral actions to address perceived threats in the form of direct 
military action, pursuit of their own nuclear capabilities, or 
accommodation of potential aggressors. All these actions could 
destabilize the security environment increasing the potential for armed 
conflict, proliferation cascades, or other effects harmful to U.S. 
national security interests.

    14. Senator Ayotte. Admiral Haney, what must the United States do 
in the coming years to ensure our allies retain their confidence in the 
credibility of the U.S. nuclear umbrella?
    Admiral Haney. Our allies will remain confident in our security 
commitments as long as we maintain an appropriate extended deterrence 
strategy, a nuclear force structured and sized to support it, and 
demonstrate its effectiveness and flexibility to counter current and 
emerging nuclear threats. Continued support for the modernization of 
our nuclear forces, through efforts such as the B61-12 Life Extension 
Program, is indicative of our long-term commitment and is equally 
important in instilling confidence among our allies.
                                 ______
                                 
    [The nomination reference of ADM Cecil E.D. Haney, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 20, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Navy to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be Admiral.

    ADM Cecil E.D. Haney, 0000.
                                 ______
                                 
    [The biographical sketch of ADM Cecil E.D. Haney, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
                                ------                                


   Transcript of Naval Service for ADM Cecil Eugene Diggs Haney, USN


07 Jun 1978                                 Ensign
07 Jun 1980                                 Lieutenant (junior grade)
01 Jul 1982                                 Lieutenant
01 Sep 1988                                 Lieutenant Commander
01 Jun 1993                                 Commander
01 Jul 1999                                 Captain
01 Jul 2005                                 Rear Admiral (lower half)
01 Jan 2008                                 Rear Admiral
03 Nov 2010                                 Vice Admiral
20 Jan 2012                                 Admiral, Service continuous
                                             to date
 


Assignments and duties:

------------------------------------------------------------------------
                                         From                 To
------------------------------------------------------------------------
Navy Recruiting District,         Jun 1978..........  Jul 1978
 Washington, DC (Assistant
 Officer Recruiter).
Naval Nuclear Power School, NTC,  Jul 1978..........  Feb 1979
 Orlando, FL (DUINS).
Naval Nuclear Power Training      Feb 1979..........  Aug 1979
 Unit, Windsor, CT (DUINS).
Naval Submarine School, New       Aug 1979..........  Dec 1979
 London, CT (DUINS).
USS John C. Calhoun (SSBN 630)    Dec 1979..........  May 1983
 (Main Propulsion Assistant).
USS Frank Cable (AS 40)           May 1983..........  Jun 1983
 (Prospective Radiological
 Controls Officer).
Navy Shipyard, Puget Sound, WA    Jun 1983..........  Jul 1983
 (DUINS).
USS Frank Cable (AS 40)           Jul 1983..........  Jul 1985
 (Radiological Controls Officer).
Naval Post Graduate School,       Aug 1985..........  Oct 1987
 Monterey, CA (DUINS).
Naval Submarine School, Groton,   Oct 1987..........  Apr 1988
 CT (DUINS).
USS Hyman G. Rickover (SSN 709)   May 1988..........  Jul 1991
 (Engineer Officer).
Naval Submarine School, Groton,   Jul 1991..........  Aug 1991
 CT (DUINS).
XO, USS Asheville (SSN 758).....  Aug 1991..........  Mar 1993
Commander, Submarine Squadron     Mar 1993..........  Jun 1993
 Eight (Assistant Squadron
 Deputy for Training).
Naval Reactors, Department of     Jun 1993..........  Jun 1995
 Energy, Washington, DC
 (Administrative Assistant for
 Enlisted Affairs).
Naval Reactors. Department of     Jun 1995..........  Sep 1995
 Energy, Washington, DC
 (Prospective Commanding Officer
 Refresher Course).
Commander. Submarine Force, U.S.  Sep 1995..........  Dec 1995
 Pacific Fleet (DUINS).
CO, USS Honolulu (SSN 718)......  Dec 1995..........  Jun 1999
National War College,             Jun 1999..........  Jun 2000
 Washington, DC (DUINS).
Office of the Under Secretary of  Jun 2000..........  May 2002
 Defense (Congressional
 Appropriations Liaison Officer).
Commander, Submarine Squadron     May 2002..........  Jul 2004
 ONE.
Commander, U.S. Pacific Fleet     Jul 2004..........  Oct 2006
 (Deputy Chief of Staff for
 Plans, Policies, and
 Requirements) (N5/N8).
Commander. Submarine Group TWO..  Oct 2006..........  Mar 2008
Office of the Chief of Naval      Mar 2008..........  Apr 2010
 Operations (Director, Submarine
 Warfare Division) (N87).
Office of the Chief of Naval      Apr 2010..........  Nov 2010
 Operations (Director, Naval
 Warfare Integration Group)
 (NOOX).
Deputy Commander, U.S. Strategic  Nov 2010..........  Jan 2012
 Command.
Commander, U.S. Pacific Fleet...  Jan 2012..........  To Date
------------------------------------------------------------------------


Medals and awards:
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit with four Gold Stars
    Navy and Marine Corps Commendation Medal with two Gold 
Stars
    Navy and Marine Corps Achievement Medal with one Gold Star
    Meritorious Unit Commendation
    Navy ``E'' Ribbon with two ``E'' devices
    Navy Expeditionary Medal
    National Defense Service Medal with two Bronze Stars
    Global War on Terrorism Service Medal
    Sea Service Deployment Ribbon with three Bronze Stars
    Navy Arctic Service Ribbon

Special qualifications:
    BS (Ocean Engineering) U.S. Naval Academy, 1978
    MS (Systems Technology) Naval Post Graduate School, 1987
    MS (Engineering Acoustics) Naval Post Graduate School, 1987
    MS (Foreign Affairs) National War College, 2000
    Designated Qualified in Submarines. 1981
    Designated Surface Warfare Officer, 1985
    Designated Joint Qualified Officer. 2003
    Awarded the Vice Admiral James B. Stockdale Leadership 
Award, 1998
    Capstone, 2006-4

Summary of joint duty assignments:

------------------------------------------------------------------------
           Assignment                    Dates               Rank
------------------------------------------------------------------------
Office of the Under Secretary of  Jun 00-May 02.....  Capt
 Defense (Congressional
 Appropriations Liaison Officer).
Deputy Commander. U.S. Strategic  Nov 10-Jan 12.....  VADM
 Command.
------------------------------------------------------------------------

                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by ADM Cecil E.D. 
Haney, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Cecil Eugene Diggs Haney.

    2. Position to which nominated:
    Commander, U.S. Strategic Command.

    3. Date of nomination:
    June 20, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 1, 1955; Washington, DC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Bonita Kay Haney, formerly Bonita Kay Thompson.

    7. Names and ages of children:
    Elizabeth Ann Haney, 33 years old.
    Thomas Alexander Haney, 29, years old.
    Joseph Andrew Haney, 23 years old.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above.
    Commissioner assigned as the Active Duty Navy Representative to the 
Military Leadership Diversity Commission (http://mldc.whs.mil/).

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements other than those listed on the 
service record extract provided to the committee by the executive 
branch.
    2006 Black Engineer of the Year Career Achievement in Government 
Award.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Cecil E.D. Haney.
    This 29th day of May, 2013.

    [The nomination of ADM Cecil E.D. Haney, USN, was reported 
to the Senate by Chairman Levin on July 20, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 1, 2013.]
                              ----------                              

    [Prepared questions submitted to LTG Curtis M. Scaparrotti, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also improved cooperation between the Services and the 
combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. I do not see the need for modifications at this time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Not Applicable.
                       duties and qualifications
    Question. What is your understanding of the duties and functions of 
the Commander, United Nations Command/Combined Forces Command/U.S. 
Forces Korea and what is your understanding of how these different 
command responsibilities interrelate?
    Answer. The Commander, United Nations Command (UNC), serves as 
commander of the International Command and is responsible for 
maintaining the United Nations Armistice Agreement on the Korean 
Peninsula. The Commander, UNC is also responsible for the operational 
control, strategic direction and combat operations of the UNC member 
nations' forces during contingencies. The Commander, UNC acts in 
accordance with the U.N. Security Council resolutions and directives; 
and also the directives of the U.S. Government as transmitted by 
Secretary of Defense through the Chairman of the Joint Chiefs of Staff, 
keeping the U.S. Pacific Command Commander informed.
    The Commander of Combined Forces Command (CFC) leads the bi-
national U.S.-Republic of Korea (ROK) force and is responsible to 
support the Armistice Agreement, to deter aggression against the ROK 
and if deterrence fails, defeat the external threat to the ROK. The 
commander acts on the direction from the U.S.-ROK Military Committee, 
which is the strategic interface between the United States and the ROK 
national authorities.
    The Commander, U.S. Forces Korea (USFK), is a sub-unified command 
of U.S. PACOM and is responsible for all duties and functions assigned 
by title 10, U.S.C. and the Unified Command Plan. The Commander, USFK, 
supports the Armistice Agreements, provides forces to Commander, CFC 
and UNC, and provides administrative and logistic support necessary to 
maintain their readiness. Commander, USFK reports through the U.S. 
Pacific Command Commander to the Secretary of Defense.
    These three commands mutually support each other's missions. The 
CFC and USFK can both provide support to the Armistice functions of the 
UNC. Similarly, both USFK and UNC can provide support to CFC for the 
latter's deterrence and defense missions. International support to the 
CFC is coordinated through the UNC. The close consultative partnership 
with our ROK ally and the member nations of UNC ensure that these 
commands are leveraged in a complementary fashion in order to support 
the national interests of the Republic of Korea and the United States.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. If confirmed, my first priority as the UNC/CFC/USFK 
Commander must be to maintain trained, ready, and disciplined joint and 
combined forces that are prepared to fight and win. My extensive 
experience in operations and in command, and with multiple operational 
deployments prepared me well to assume these duties. I have commanded 
troops at battalion level during operational deployments to Africa and 
Bosnia; as Deputy Division Commander of 1st Armored Division in Iraq; 
the 82d Airborne Division Commander/and Commander of RC-East in 
Afghanistan, a multi-national command with 26,000 troops and 
responsible for approximately 40 percent of Afghanistan including the 
key border region with Pakistan; and most recently in Afghanistan as 
the U.S. I Corps/ISAF Joint Command Commander responsible for the day-
to-day operations of a multi-national force with contributions from 50 
Nations. Between these command experiences, I've served in key joint 
leadership positions such as the Operations Officer for U.S. Central 
Command and now as the Director of the Joint Staff. These joint, 
coalition, and interagency experiences provide me the knowledge, skills 
and insight necessary to lead a large complex, multinational 
organization and to ensure their readiness to meet the demanding 
mission in Korea.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
United Nations Command/Combined Forces Command/U.S. Forces Korea?
    Answer. I have gained invaluable experience serving as the Director 
of the Joint Staff, and during my previous command of the U.S. Army I 
Corps at Joint Base Lewis-McChord. I also recognize that there are many 
individuals in both the ROK and U.S. Governments who have vast 
experience and knowledge of the ROK-U.S. Alliance. If confirmed, I will 
seek in depth discussions with experts in our Government, the ROK 
Government, nongovernmental organizations, and educational/research 
institutions to develop my personal political, military, economic and 
cultural knowledge. Also, if confirmed, I will continuously build 
strong professional relationships that are essential to success as the 
USFK, UNC, and CFC Commander.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, 
United Nations Command/Combined Forces Command/U.S. Forces Korea with 
the following officials: the Secretary of Defense, the Deputy Secretary 
of Defense, the Under Secretary of Defense for Policy, the Under 
Secretary of Defense for Intelligence, the Chairman of the Joint Chiefs 
of Staff, the Secretaries of the Military Departments, the Chiefs of 
Staff of the Services, Commander, U.S. Pacific Command, other combatant 
commanders.
    The Secretary of Defense.
    Answer. The Department of Defense (DOD) is composed of the Office 
of the Secretary of Defense, the Joint Chiefs of Staff, the Joint 
Staff, the Office of the Inspector General of the Department of 
Defense, the combatant commands, the Military Departments, the Defense 
agencies, Department of Defense Field Activities, and such other 
offices, agencies, activities, organizations, and commands established 
or designated by law, or by the President or by the Secretary of 
Defense, in accordance with sections 111, 113, and 192 of title 10, 
U.S.C. The functions of the heads of these offices are assigned by the 
Secretary of Defense in accordance with existing law. The Commander UNC 
reports to the Secretary of Defense through the Chairman, Joint Chiefs 
of Staff, and through the Secretary of Defense to the President, while 
at the same time, keeping the Commander, U.S. Pacific Command, informed 
of any communications with U.S. national authorities. A validated 
combined U.S.-ROK document provides further guidance on Commander CFC's 
unique relationship with the ROK National Command and Military 
Authorities and the U.S. Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense, in accordance with the 
authorities contained in title 10, U.S.C., and except as expressly 
prohibited by law or order of the President or Secretary of Defense, 
has full power and authority to act for the Secretary of Defense and to 
exercise the powers of the Secretary of Defense upon any and all 
matters concerning which the Secretary of Defense is authorized to act 
pursuant to law.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Under Secretary of Defense for Policy is the Principal 
Staff Assistant and Advisor to the Secretary and Deputy Secretary of 
Defense for all matters on the formulation of national security and 
defense policy, and the integration and oversight of DOD policy and 
plans to achieve national security objectives.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Under Secretary of Defense for Intelligence is the 
Principal Staff Assistant and Advisor to the Secretary and Deputy 
Secretary of Defense regarding intelligence, counterintelligence, 
security, sensitive activities, and other intelligence-related matters.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, the 
Homeland Security Council, and the Secretary of Defense. Commander UNC 
communicates through the Chairman, Joint Chiefs of Staff, to the 
Secretary of Defense.
    Question. The Secretaries of the Military Departments.
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the Secretaries of the Military Departments are 
responsible for, and have the authority necessary to conduct, all 
affairs of their respective Departments, including: recruiting; 
organizing; supplying; equipping to include research and development; 
training; servicing; mobilizing; demobilizing; administering to include 
the morale and welfare of personnel; maintaining; construction, 
outfitting, and repairs of military equipment; and the construction, 
maintenance, and repair of buildings, structures, and utilities as well 
as the acquisition, management, and disposal of real property and 
natural resources.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services are responsible for the 
organization, training, and equipping of the Services under title 10, 
U.S.C. Their support is critical to meet readiness needs. The Service 
Chiefs of Staff also provide military advice to the President, the 
National Security Council, the Homeland Security Council, the Secretary 
of Defense, and the Chairman of the Joint Chiefs of Staff as members of 
the Joint Chiefs of Staff.
    Question. Commander, U.S. Pacific Command
    Answer. The Commander, U.S. Forces Korea, as commander of a sub-
unified command of U.S. Pacific Command (PACOM), reports directly to 
Commander, PACOM, on matters directly pertaining to USFK areas of 
responsibility. Commander, United Nations Command and Commander, 
Combined Forces Command, keep the Commander, PACOM, informed of any 
communications with U.S. national authorities.
    Question. Other combatant commanders.
    Answer. The commanders of the combatant commands are responsible to 
the President and the Secretary of Defense for accomplishing the 
military missions assigned to them and shall exercise command authority 
over assigned forces as directed by the Secretary of Defense. The 
operational chain of command runs from the President to the Secretary 
of Defense to the commanders of the combatant commands. The Chairman of 
the Joint Chiefs of Staff functions within the chain of command by 
transmitting to the commanders of the combatant commands the orders of 
the President or the Secretary of Defense.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Commander, United Nations Command/Combined Forces 
Command/U.S. Forces Korea (USFK)?
    Answer. Based on my study of the security situation on the Korean 
Peninsula and vital U.S. national interests in Northeast Asia, there 
are four major and enduring challenges that confront any UNC, CFC, and 
USFK Commander.
    The first challenge is to maintain the Alliance Agreements and to 
deter the DPRK. Second, to ensure force readiness to fight and win a 
war with North Korea and to simultaneously prepare for the consequences 
of a DPRK regime collapse. Third, to maintain a strong U.S.-ROK 
Alliance to achieve the Security Objectives on the Peninsula. Finally, 
to execute a cohesive and effective transformation of the Alliance in 
accordance with the Strategic Alliance 2015. This transformation 
includes an operational control (OPCON) transition as outlined in 
Strategic Alliance 2015 Base Plan (SA 2015).
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. If confirmed, I will build strong relationships with the 
ROK leadership in order to ensure strength, cohesion and confidence in 
our alliance and our strategy.
    If confirmed, I will focus on the readiness of the U.S. and ROK 
forces in Combined Forces Command to fight tonight and emphasize 
challenging, realistic and effective joint and combined training 
required to ensure readiness.
    If confirmed, I will work closely with the ROK leadership to 
develop detail and agreement on the planning, conditions, and metrics 
required to succeed in the transition of operational control in 
accordance with Strategic Alliance 2015.
    Finally, if confirmed, I will work closely with our Ambassador to 
provide the leadership necessary to realize U.S. and ROK objectives.
                              north korea
    Question. North Korea represents one of the greatest near-term 
threats to regional security and stability. The seriousness of the 
threat is seen by North Korea's continued pursuit of nuclear weapons 
and ballistic missiles. Even without these capabilities, however, North 
Korea's conventional military force coupled with its history of 
aggressive and unpredictable behavior underscore the dangerousness of 
the situation.
    What is your assessment of the current security situation on the 
Korean peninsula?
    Answer. I believe North Korea remains the primary threat to 
security in Northeast Asia. Over the past few years, the security 
situation on the Peninsula has reached high levels of tension following 
the March 26, 2010 attack on the ROK navy vessel Cheonan and the 
artillery shelling of Yeonpyeong Island on 23 Nov 10. In recent months, 
North Korea defied the will of the international community by 
conducting tests associated with its nuclear weapons and ballistic 
missile programs.
    North Korea has hindered the progress of Six-Party denuclearization 
talks; adopted a policy of provocative actions in an attempt to secure 
concessions and continues its nuclear program. Although its 
conventional force threat continues to decline, it has compensated by 
repositioning and redistributing its inventory of conventional 
artillery, while investing in asymmetric capabilities, such as 
ballistic missiles, special operations forces, and cyber technology.
    I believe our primary concern is the potential for additional North 
Korean provocations, which is a tool of choice as part of its coercive 
diplomatic strategy designed to safeguard the regime, maintain internal 
control, and extort foreign aid. Also, Kim Jong-un's youth and 
inexperience increase the likelihood of miscalculation, as does the 
imperative for him to maintain credibility with the military 
hardliners. These factors make him less predictable in the near-term.
    Question. What is your assessment of the threat posed to South 
Korea, Japan, and the United States by North Korea's ballistic missile 
and weapons of mass destruction capabilities?
    Answer. North Korean ballistic missile and nuclear programs pose a 
direct threat to security in Northeast Asia and could provide an 
increased threat to the U.S. Homeland in the future. The Kim Regime 
continues to use these two programs to shape conditions and to gain 
leverage during negotiations, to extract concessions, and ensure regime 
survival. North Korea views its WMD and theater ballistic missile 
programs as sources of international power and prestige, strategic 
deterrent against the ROK, United States, and Japan, a means of 
exerting regional influence, and a source of currency derived from 
export sales.
    North Korea possesses extensive short- and medium-range ballistic 
missile programs with an inventory of several hundred ballistic 
missiles. North Korea continues to build these missiles of increasing 
range, lethality, and accuracy, while enhancing the survivability of 
its missile forces. North Korea's research and development of an 
Intercontinental ballistic missile, and possible fielding of an 
intermediate range missile, is a threat to the western United States, 
Okinawa, Guam, and Alaska. The successful space launch in December 2012 
demonstrates an increasing capability as well as an intent to target 
the United States.
    Despite severe fiscal difficulties, North Korea commits significant 
resources to develop and produce ballistic missiles for both deployment 
within North Korea and export. This missile development program 
presents a threat which cannot be ignored.
    North Korea reaffirmed its ability to produce a nuclear weapon with 
its third nuclear test on 12 February 2013 at Punggye. The Intelligence 
Community assesses that North Korea has sufficient plutonium to produce 
weapons.
    Additionally, there are indications that North Korea has pursued a 
highly enriched uranium program in the past, and it is likely the 
effort continues today. In November 2010, North Korea displayed a 
uranium enrichment facility at Yongbyon to foreign visitors. The 
facility's purpose, ostensibly, is to produce fuel for a light water 
reactor currently under construction at the facility. However, this 
capability could provide an alternative source of highly enriched 
uranium for use in nuclear weapons.
    Question. What is your assessment of North Korea's conventional 
capabilities and readiness?
    Answer. North Korea conventional capabilities (particularly air, 
naval, ground mechanized, and armor) continue to decline due to 
shortfalls in equipment modernization and advanced training. However, 
North Korea boasts the fourth largest Army in the world with more than 
70 percent of its forces near the demilitarized zone (DMZ). I also 
understand that North Korea has adjusted its strategy to focus on 
asymmetric capabilities with deployments and development of new 
ballistic missiles and increased emphasis on specialized light infantry 
and Special Operation Forces.
    Question. What, if anything, should be done to strengthen 
deterrence on the Korean Peninsula?
    Answer. I believe the most important factors in strengthening 
deterrence on the Korean Peninsula are the maintenance of a strong 
U.S.-ROK Alliance and the readiness of our Joint and Combined Force. 
Both the ROK and United States continue to invest in improved military 
capabilities while working toward the transition to a ROK-led allied 
defense of the Peninsula. In order to strengthen deterrence, the 
Alliance needs to increase the interoperability between ROK and U.S. 
Forces, refine command, control, communications, computers, and 
intelligence (C4I) relationships and capabilities following OPCON 
transition, and improve the ROK's ballistic missile defense capability.
    Question. Do you believe you have adequate resources to defend our 
allies and national interests if North Korean forces were to move 
across the DMZ?
    Answer. Yes, as I understand it, the U.S. contribution to the 
combined defense of the Republic of Korea (ROK) is adequate to deter 
North Korea aggression and to provide decisive joint reconnaissance and 
operational fires in support of South Korean ground forces if 
deterrence should fail. Also, the ROK ally has made great strides in 
modernizing and improving their military readiness. If confirmed, I 
will conduct a careful and thorough review of the command's readiness 
and available resources as well as the impact of fiscal realities to 
ensure we have what is needed to defend our allies and national 
interests.
    Question. What capabilities are the most critical to mounting an 
effective defense against a North Korean move across the DMZ?
    Answer. There are several critical capabilities important in 
mounting an effective defense, the first of which is a trained and 
ready ROK force. Also, the United States provides critical ballistic 
missile defense, intelligence, surveillance, and reconnaissance, C4I, 
and joint operational fires capabilities in support of the Alliance. 
The CDR United Nations Command/Combined Forces Command Commander, and 
the U.S. senior leaders, provide vital leadership for the combined ROK-
U.S. Alliance.
    I am aware of the command's ongoing day-to-day engagements with our 
ROK civil and military counterparts that seek to balance U.S. 
contributions against existing and emerging ROK capabilities and U.S. 
national priorities. U.S. augmentation of in-place USFK capabilities 
also remains an essential component to defeating a potential North 
Korean aggression and restoring stability to the Korean Peninsula.
    Question. What do you perceive are the differences, if any, between 
Kim Jong Un and his father?
    Answer. As I understand it, the main differences between Kim Jong-
un (KJU) and his father, Kim Jong-il (KJI), are in the areas of 
leadership of the military and experience with internal politics. There 
is a lot we do not know about the new leader. KJU's youth, 
inexperience, and lack of a track record make it difficult to predict 
his intentions, actions, and reactions. There is a generational shift, 
and KJU has been balancing his ideals with a regime effort to reflect 
his grandfather, Kim Il Sung. Overall, however, I do not believe there 
has been any significant shift in North Korean regime interests, and do 
not anticipate any near-term changes in North Korean pursuit of nuclear 
or missile capabilities.
    Question. How do you think increased assertiveness by South Korean 
and Japanese leadership affects the situation on the Peninsula?
    Answer. Cooperation between South Korea and Japan is vital for 
stability and security in Northeast Asia, and United Nations Command 
rear bases in Japan are critical for the defense of South Korea. Along 
with U.S. Ambassador Sung Kim, I will, if confirmed, continue to 
encourage South Korean and Japanese bilateral and multilateral security 
cooperation despite recent public friction. I understand the historical 
and territorial disputes that hinder public support for Korea-Japan 
bilateral initiatives. However, I am confident that in time of crisis 
and conflict with North Korea, the United Nations Command will have 
Japanese support, and the ROK and Japan will work closely together. If 
confirmed, I will continue to encourage close military cooperation but 
recognize these issues are heavily dependent upon bilateral discussions 
between Seoul and Tokyo.
    Question. Do you think budget cuts and sequestration will result a 
reduced carrier presence and U.S. warship presence in the Pacific, and 
if so, do you think that makes Kim Jong Un more likely to miscalculate 
or to be more militarily aggressive?
    Answer. I know that DOD is committed to the rebalance to the 
Pacific. However, the effects of full sequestration may lead to a 
reduction of U.S. warship presence. The presence of U.S. warships in 
the Pacific has a significant deterrent effect on North Korean military 
aggression. Pyongyang has not committed a major provocative action when 
a U.S. carrier group was present in the Korean Theater of Operations. 
North Korean rhetorical threats against U.S warships and other U.S. 
capabilities clearly indicate their concern, for which they have no 
viable military response.
    Question. What is your assessment of China's role in managing North 
Korean behavior and ambitions?
    Answer. The China-North Korea relationship has a major impact on 
North Korean behavior and ambitions. The United States and South Korea 
continue to pursue diplomatic and security dialogue with Beijing on 
North Korea issues. I understand China recognizes and shares our 
interest in stability and a nuclear-free North Korea. It is important 
for China to recognize the benefits of close coordination with the 
international community in its efforts to prevent North Korean 
aggression and encourage responsible behavior.
                      north korean nuclear program
    Question. In 2010, North Korea disclosed that it has a functioning 
uranium enrichment program and earlier this year it announced the 
intention to restart plutonium production at Yongbyon. These 
developments, coupled with its underground nuclear tests--the third of 
which was conducted this year--make it clear that North Korea is 
determined to pursue nuclear weapons. So, while there may be 
disagreement on the current status of North Korea's nuclear weapons 
program, there is general consensus that North Korea will eventually 
possess nuclear weapons, if they do not already. Moreover, North Korea 
has a history of proliferating missile and nuclear technology. The 
Proliferation Security Initiative (PSI) is a means to interdict suspect 
shipments, including shipments of nuclear or missile items to and from 
North Korea.
    Would you recommend any improvements to the organization or 
capability of the PSI member nations to improve the ability to 
interdict prohibited shipments to and from North Korea?
    Answer. I fully support this initiative, and if confirmed, I will 
emphasize the need for multinational cooperation, interest, information 
sharing, and commitment to preventing the proliferation of weapons of 
mass destruction (WMD).
    Proliferation prevention is a critical issue for the Korean Theater 
of Operations. The Republic of Korea has demonstrated their commitment 
to and leadership in the PSI through their participation in multiple 
multinational planning events and training exercises, including the 
Eastern Endeavor Livex Table Top Exercise in September 2012, and the 
U.S.-UAE Leading Edge 13 exercise this past February.
    Recent events have reinforced the need for multinational support in 
combating the proliferation of WMD. This month, a North Korean-flagged 
ship was intercepted by the Panamanian military carrying what appeared 
to be ballistic missiles and other arms en-route from Cuba to North 
Korea.\1\
---------------------------------------------------------------------------
    \1\ Derived from an open source article in The Korean Times 
published on 17 July 2013.
---------------------------------------------------------------------------
    Question. In your view, are there additional steps that DOD could 
take, including with our allies and partners, to ensure that North 
Korea does not proliferate missile and nuclear technology to countries 
such as Syria, Iran and others?
    Answer. If confirmed, I will assess whether United States or 
Combined ROK-U.S. Forces can more effectively contribute to the PSI, or 
other U.S. Pacific Command initiatives. Further, effective counter-
proliferation requires interagency and international cooperative 
efforts integrated with the critical intelligence assets. To 
effectively deter North Korea's proliferation efforts, it is vital that 
the current sanctions levied against North Korea be maintained and 
enforced. This includes not only the United States but also regional 
and international partners.
    Question. In your view, how does the lack of progress in diplomatic 
efforts to persuade North Korea to verifiably dismantle its nuclear 
weapons program inform or guide U.S. nuclear deterrence strategy in the 
region?
    Answer. North Korea continues to make progress in its pursuit of 
nuclear weapons and delivery systems. We need to be consistent and 
persistent, and we need to continue our diplomatic efforts to close 
gaps and increase pressure in the regime. I understand the Department 
is holding ongoing bilateral Extended Deterrence Policy Committee 
meetings to develop a new ROK-U.S. Alliance tailored deterrence 
strategy to deal with this growing challenge. I support diplomatic 
efforts to denuclearize North Korea, and if confirmed, I would ensure 
that we are prepared to deter and defend against any North Korean 
nuclear threat.
    Question. Do you think North Korea poses a near-term, mid-term, or 
long-term nuclear threat?
    Answer. I believe North Korea's nuclear capabilities pose a long-
term threat to U.S. interests.
               usfk ballistic missile defense priorities
    Question. Recent developments in the North Korean ballistic missile 
program--the successful space launch of a satellite in December 2012 
and the display of a road-mobile missile launcher during a parade last 
year--coupled with the unpredictability of the North Korean regime 
place a premium on a robust, coordinated missile defense capability in 
the region.
    What is your assessment of the highest priority missile defense 
needs of U.S. Forces Korea and Combined Forces Command?
    Answer. As I understand it, the levels of interoperability we 
achieved with our partners in the Korean Theater during the most recent 
North Korean missile launch was unprecedented, however, there is more 
work to be done. Our ballistic missile defense needs an organic Upper 
Tier ballistic missile defense capability such as Terminal High 
Altitude Area Defense (THAAD) or Theater Ballistic Missile capable 
Aegis ships in order to fully address the North Korean missile threat. 
While THAAD's temporary deployment to Guam bolsters the PACOM AOR 
overall ballistic missile defenses, it does not specifically address 
the ballistic missile defense shortfalls for the Korean Theater of 
Operations.
    Question. What missile defense capabilities do you believe are 
needed in the near term to meet the operational needs of these 
commands, and what systems are available to provide such capabilities?
    Answer. As I understand, the evolving ballistic missile threat in 
Korea requires an integrated, layered ballistic missile defense 
approach. The addition of an upper-tier intercept capability such as 
the THAAD or ballistic missile defense capable Aegis ships in the near 
term would complement the Patriot's existing terminal defense 
capability and significantly enhance ballistic missile defense on the 
Peninsula. Also, I understand the U.S. and ROK teams continue to 
identify improvements to the missile defense capability. If confirmed, 
I will conduct a thorough review of the missile defense capabilities to 
ensure we are prepared to defend against the North Korea missile 
threat.
    Question. In addition to the deployment of Patriot, THAAD, and 
Aegis BMD capable ships to the Pacific, what other steps, if any, do 
you think are necessary to provide adequate protection for U.S., 
partner, and allied assets?
    Answer. We must continue to work on the interoperability and 
integration of existing and emerging ballistic missile defense systems 
with our allies and partners. The ability to rapidly and seamlessly 
share ballistic missile warning, tracking, and engagement information 
is crucial to providing a missile defense that maximizes protection 
while preserving scarce resources.
    Question. The February 2010 Ballistic Missile Defense Review 
established a policy of pursuing a Phased Adaptive Approach to regional 
missile defense, including in Europe, the Middle East, and East Asia. 
This approach is intended to provide timely and effective defense of 
existing and emerging missile threats with a flexible set of missile 
defense capabilities, tailored to each region.
    Do you support the Phased Adaptive Approach to missile defense, and 
do you believe it is an appropriate approach to providing missile 
defense capabilities for the vicinity of the Korean Peninsula?
    Answer. Yes, I do support the Phased Adaptive Approach and believe 
that it is the appropriate approach to continue to improve the missile 
defense capabilities on the Korean Peninsula.
    Question. In Europe the Phased Adaptive Approach is geared towards 
protecting additional territory of partners and allies as the Iranian 
threat capabilities grow.
    Since the North Korean capability already threatens partners and 
allies, what are the phases of the Phased Adaptive approach in the 
Pacific?
    Answer. Specific to the Republic of Korea, I understand that Phase 
I has been completed through the stationing of U.S. and ROK Patriot 
forces to defeat short and medium range missiles. Phase II, which is 
underway, involves increasing partner capabilities and integrating 
capabilities. The Republic of Korea has committed to upgrading its 
Patriot forces, and we have made significant strides towards the 
integration of our ballistic missile defense systems. Phase III is the 
addition of upper-tier systems such as THAAD or Aegis BMD and more 
powerful sensors such as AN/TPY-2 to defeat medium and intermediate 
range missiles.
    Question. Do you believe it would be in our security interests to 
seek a cooperative missile defense relationship with South Korea as a 
means of enhancing security on the Korean Peninsula and the region?
    Answer. Yes, I believe it is in our interest, and I understand that 
the command is actively seeking a cooperative missile defense 
relationship. If confirmed as Commander of U.S. Forces in Korea, I 
would continue to follow through on Alliance agreements reached during 
the Counter-missile Capabilities Committee to enhance an integrated, 
comprehensive Alliance counter-missile capability based on a strategy 
of detecting, defending against, disrupting, and destroying North 
Korean missile assets.
                    role of other regional countries
    Question. North Korea's provocative behavior threatens not just 
security and stability on the Korean Peninsula, but also the security 
and stability of the entire region.
    In your view, what are the roles and responsibilities of other 
regional countries in helping to manage the threat posed by North 
Korea's nuclear and ballistic missile programs?
    Answer. Not only regionally but internationally, countries have a 
responsibility to help deter against the North Korean threat. This is 
why, if confirmed, I would strengthen the role and visibility of the 
United Nations Command. I believe there is deterrent value in 
highlighting the UNC role and presence--the Alliance is prepared to 
fight tonight, but the entire international community has a stake in 
stability in Northeast Asia.
             united states-republic of korea (rok) alliance
    Question. Since the end of World War II, the U.S.-ROK alliance has 
been a key pillar of security in the Asia-Pacific region. This 
relationship has gone through periods of inevitable change.
    What is your impression of the current U.S. security relationship 
with the ROK?
    Answer. It is my understanding the current U.S. security 
relationship with the ROK is very strong, based on mutual respect and 
trust and grounded in the Mutual Defense Treaty. In June 2009, the 
United States and ROK signed a Joint Vision statement that commits both 
nations to building an alliance that ensures a peaceful, secure, and 
prosperous future for the Korean Peninsula, the Asia-Pacific region, 
and the world at large. And recently, President Obama and President 
Park validated the Joint Vision Statement during their 2013 summit, 
issuing a Joint Declaration that add impetus to our efforts to 
modernize and strengthen our Alliance in the service of both of our 
Nation's interests.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-ROK security relationship?
    Answer. I will, if confirmed, continue the work of my predecessors 
focused on sustaining strong ties with the ROK military and other 
security-related organizations in the ROK Government. Regular and 
consistent, in-depth engagement at multiple levels is essential to 
building mutual understanding and habits of cooperation that will serve 
our mutual interests and maintain a strong and vibrant relationship in 
a complex environment.
    If confirmed, I will also work to build broader and deeper 
relationships with the Korean people. In particular, I will encourage 
continued exchange and cooperation activity between the Command and the 
people of local Korean communities--activity that form strong Americans 
and Korean bonds.
    Finally, I will work closely with the U.S. Ambassador to Korea and 
other elements of the U.S. Government to take a flexible, adaptable, 
and expansive approach to designing and executing Alliance-building 
initiatives that promote the continuation of a strong U.S.-ROK security 
relationship.
    Question. What is your assessment of ROK warfighting capability 
trends with regard to the modernization and capability improvements in 
ROK equipment and training?
    Answer. The ROK military remains a capable and motivated force. 
However, I understand recent USFK assessments indicate the ROK military 
has critical capability gaps across all the services in 
interoperability, materiel, manning, and training. The ROK Government 
in recent bilateral talks has committed to an acquisition timeline and 
training plan to resolve capability shortfalls. If confirmed, I will 
work closely with the ROK leadership to assess and validate ROK 
progress during annual combined joint exercises and other bilaterally 
agreed forums. Meanwhile, the United States will bridge capability gaps 
until the ROK military has acquired the capability. There are U.S. 
capabilities like extended deterrence that the United States will 
provide for the duration of the Alliance.
    Question. What is your understanding of the command relationships 
between U.S. and ROK forces?
    Answer. Based upon my understanding, the current command 
relationships provide very close cooperation, collaboration, and 
transparency to fully leverage combined capabilities. The U.S.-ROK 
command relationships are structured to address the distinct 
requirements of Armistice, crisis, and wartime conditions. Our crisis 
action relationships provide the required flexibility to allow a 
tailored Alliance response to a military crisis on the Peninsula. 
Today, the ROK Chairman is responsible for the conduct of ROK forces 
and the defense of South Korea in the Armistice environment. In 
wartime, the current Alliance command relationships dictate that a U.S. 
General, Commander of CFC, exercise operational control of Alliance 
forces, both United States and ROK.
    Question. Since the 2010 North Korean attacks against the ROK--the 
sinking of the South Korea Navy ship Cheonan and the artillery attack 
on the South Korean island--South Korea has been adamant that it will 
responded ``firmly'' to the next such provocation. A main topic during 
subsequent U.S.-ROK Security Consultative Meetings has been the 
development of a joint counter-provocation plan, which was reportedly 
formalized earlier this year.
    What is your understanding of how the attacks on the Cheonan and on 
Yeonpyeong Island changed the ROK and U.S. security posture on the 
Peninsula?
    Answer. These attacks highlighted the threat from North Korea. The 
Command has since signed a combined Alliance counter-provocation 
contingency plan that improved the readiness posture and allows for a 
timely, decisive, proportionate, and coordinated Alliance response to 
future provocations. CFC/USFK/UNC lines of communication with ROK JCS, 
U.S. DOD and U.S. National Command Authority (NCA) have been improved 
and exercised as a result of these two most recent provocations. If 
confirmed, I would continue such efforts to ensure we are always 
improving deterrence and, in the event of another provocation, our 
ability to respond.
    Question. What is your understanding of the U.S. obligations in the 
event of an attack on South Korea by North Korea, and under what 
circumstances do you believe the U.S. armed forces should be committed 
to engage North Korean forces in response to an attack on South Korea?
    Answer. Under the Mutual Defense Treaty and through our Alliance, 
we have deterred a major North Korean attack, and maintained our 
commitment to defend South Korea from external aggression. There are a 
number of plans that outline specific U.S. commitments and South Korean 
obligations to coordinate responses to a North Korean provocation or 
attack.
                transfer of wartime operational control
    Question. In June 2010, the United States and ROK agreed to further 
delay the transfer of OPCON until December 2015. This delay was 
purportedly agreed to because of the evolving security situation on the 
Peninsula and in order to more closely synchronize the transfer with 
other transformation initiatives. According to a recent article in the 
Washington Post, the ROK has reportedly requested to delay the transfer 
of beyond December 2015.
    Do you favor transfer of wartime operational control to the ROK no 
later than December 2015?
    Answer. Yes, I do favor the transfer of wartime operational control 
no later than December 2015. The very real threat presented by North 
Korea, however, dictates that this transition be executed in a manner 
that does not accept any unnecessary risk to the national security of 
the ROK. In short, the ROK must meet a detailed set of certification 
requirements that are, I understand, in accordance with our Strategic 
Alliance 2015 plan. Although these requirements are based on meeting 
milestones leading to December 2015, it is important to note that the 
transition is conditions-driven.
    Question. If confirmed, what will you do to help ensure full OPCON 
transfer is not delayed beyond December 2015?
    Answer. If confirmed, I will continue to execute our Strategic 
Alliance 2015 plan as directed by agreement of the Secretary of Defense 
and ROK Minister of National Defense. A principle objective of the 
theater exercise program in Korea is to train and certify OPCON 
transition, and I do not anticipate that will change. If confirmed, I 
will work aggressively with the ROK Chairman of the Joint Chiefs of 
Staff to meet Strategic Alliance 2015 milestones and report progress to 
the U.S. Chairman, the Secretary of Defense, and the ROK Minister. As 
we continue forward with OPCON transition, if confirmed, I will 
continue to provide the best military advice to senior civilian 
leadership.
    Question. Following the decision to delay OPCON transfer to 2015, 
the United States and ROK entered into an agreement referred to as 
Strategic Alliance 2015 which is described in the U.S. Forces Korea 
October 2010 Strategic Digest as ``an overarching and synchronized 
Alliance transformation roadmap, containing mutual Alliance end states 
and milestones, ensuring a smooth transition of the lead for the 
combined defense of the Republic of Korea.''
    What is your understanding of the ROK's current and projected 
military capabilities and the ability of ROK forces to assume a greater 
role in the defense of their homeland including responsibility for 
command and control of the readiness, operations and warfighting of 
their own forces in wartime (``OPCON Transfer'')?
    Answer. It is my understanding that the ROK has a highly-trained 
and capable military that is continuously improving. Their ground force 
is fully capable of defending the ROK from aggression and defeating a 
North Korean conventional attack, and they possess an outstanding Fires 
force that is fully digitized and stands ready to neutralize enemy 
artillery. ROK naval forces are highly trained and rapidly expanding 
capabilities to operate in deeper waters. The addition of Aegis-class 
destroyers aids their ability to control local seas and also improves 
ballistic missile defense. The ROK Air Force has made great progress in 
both training and capability in recent years and is fully able to 
integrate with U.S. Air Force to form a decisive team that, I 
understand, provides perhaps our largest advantage over our adversary. 
In the coming years, both ROK Marines and ROK Special Forces will 
vastly increase their capability and capacity levels, enabling an even 
more lethal joint and combined team.
    With regard to assuming a greater leadership role, I understand the 
ROK already lead much of the operation in Korea. During routine 
operations, ROK JCS commands and controls its armed forces. They are 
responsible for the day-to-day training and readiness of the force. 
During contingency operations the ROK provides leadership for the 
ground component. As we move toward OPCON transition, I understand 
their role in leading theater contingency operations will continue to 
expand until they assume the overall command and control lead in late-
2015.
    Question. What is your understanding of the purpose and scope of 
the Strategic alliance 2015?
    Answer. I understand that, in 2009, the U.S. and ROK Presidents 
agreed the leadership role of defending the ROK in wartime would 
transfer from a U.S.-led combined command to a ROK-led combined defense 
structure. To meet this, U.S. and ROK civilian and military leaders 
developed the Strategic Alliance 2015 initiative to provide an 
overarching Alliance roadmap containing joint endstates and milestones. 
It is my understanding that SA 2015 combines the transition of wartime 
operational control with other Alliance transformational initiatives 
including the relocation of U.S. Forces south of Seoul and the 
consolidation of U.S. Forces in Korea into two enduring hubs.
    Question. How will it help ensure that the OPCON transfer takes 
place no later than December 2015, as it is now scheduled?
    Answer. In addition to identifying and programming the milestones 
required to achieve the transition of wartime operational control, 
Strategic Alliance 2015 also includes a bilateral governance process 
that allows Alliance civilian and military leadership to monitor and 
assess progress. This process enables Alliance leadership to engage 
across the ROK and U.S. Governments as necessary to gain and preserve 
the required commitments of energy and resources to keep this 
transformation on track. If confirmed, I will be an active and 
energetic leader in this process.
    Question. South Koreans may be concerned as much or more about U.S. 
commitment than South Korean capabilities in December 2015.
    What steps do you recommend to assure South Korea of U.S. 
commitment?
    Answer. I understand South Korea has raised a number of questions 
about U.S. commitment in light of the U.S. rebalance to Asia, our 
fiscal situation, and plans to transition to a ROK-led defense of South 
Korea. I firmly believe the United States should reassure our ally by 
maintaining a credible, ready U.S. Force posture and the capability 
required to meet our Alliance commitments. The United States should 
also continue to support robust and realistic training exercises, which 
assure our ROK ally and deter North Korea. Finally, we should sustain 
close communication through forums such as the Extended Deterrence 
Policy Committee, the Counter-missile Capabilities Committee, and the 
Military Committee Meetings.
                      consolidation of u.s. forces
    Question. The Land Partnership Plan (LPP) is consolidating the 
combat brigade and supporting elements of the Second Infantry Division 
in and around Camp Humphreys, south of Seoul. U.S. costs associated 
with implementing the LPP are estimated at $3.2 billion, and that does 
not include hundreds of millions of dollars in transition costs for 
sustaining facilities until the move is completed. The Yongsan 
Relocation Plan (YRP) proposes to move most of the U.S. Forces 
currently stationed at Yongsan compound in Seoul to Camp Humphrey as 
well. The YRP relocation is to be largely funded by the Republic of 
Korea (ROK) Government, but the United States will face potentially 
significant costs as well.
    What is the current status of the two consolidation plans and the 
timeline for completion?
    Answer. It is my understanding that both the YRP and Land 
Partnership Plan (LPP) are on track to meet Strategic Alliance 2015 
milestones. Construction will be complete by the end of 2015 and unit 
moves complete by the end of 2016. This multi-billion dollar bilateral 
program is receiving close USFK oversight that is accountable to both 
the U.S. and Republic of Korea Governments in order to continue to keep 
it on track. If confirmed, I will continue to provide critical 
oversight of these relocation efforts.
    Question. In your opinion, does the consolidation better support 
the warfighting mission? If so, how?
    Answer. Yes, consolidation better supports the warfighting mission 
in several ways: it postures forces, specifically the 8th Army and 2nd 
Infantry Division, to increase readiness through better coordination, 
synchronization, and oversight of its subordinate units; postures 
forces to better execute contingency missions; and, through co-
location, it increases the cohesiveness of our force in Korea. I do 
have a couple concerns for specific units. If confirmed, I intend to 
review these planned moves.
    Question. What do you anticipate to be the total costs, including 
transition costs, to be incurred by the U.S. Government to carry out 
the two consolidations?
    Answer. The estimated U.S. appropriated costs related to the LPP 
program are $884.6 million, which includes U.S. military construction, 
moving services, furniture, fixtures, equipment, and C4I requirements. 
These cost estimates were recently validated by the Army Staff in March 
2013. The remaining costs are paid for through host nation burden 
sharing or directly by the Republic of Korea Government. The costs for 
executing YRP will be funded completely by the Republic of Korea 
Government. I understand this is a sensitive issue. If confirmed, I 
will conduct a thorough review of the associated costs to ensure the 
judicious use of taxpayer funds.
    Question. Given that the U.S.-ROK Status of Forces Agreement states 
that the United States is not obligated to restore facilities and areas 
to their original condition when they are returned to the ROK, to what 
extent to you believe the United States should compensate the ROK for 
the costs related to environmental clean-up at bases being vacated as a 
result of the LPP?
    Answer. I take environmental protection, human health and public 
safety issues very seriously. DOD policies are straight forward and 
clear regarding overseas environmental remediation. If confirmed, I 
will ensure those policies are fully implemented. It is also my 
understanding that the Republic of Korea and U.S. Governments have an 
established and effective means of communication regarding 
environmental issues. If confirmed, I will ensure we continue to 
cooperate closely and transparently with the Republic of Korea on all 
environmental matters.
    Question. During its review of U.S. costs and allied contributions 
to support U.S. military in Korea and elsewhere, the Senate Armed 
Services Committee reviewed the full list of construction projects 
under consideration at Camp Humphreys. Some of those projects appear to 
be of questionable value and necessity. Others raised questions as to 
whether they were the most economical way to meet requirements.
    If confirmed, what would you do to ensure that the full list of 
construction projects planned at Camp Humphreys is focused on meeting 
mission critical requirements and doing so in the most cost effective 
way?
    Answer. If confirmed, I will review the Senate Armed Services 
Committee (SASC) report, review our plans, and ensure all construction 
resources are focused on the highest priority U.S. operational and 
force readiness requirements across all services and all bases in 
Korea. USFK's comprehensive campaign plan, to include the theater 
infrastructure master plan, appears to be an effective mechanism to 
prioritize these requirements.
                  host nation burden-sharing programs
    Question. The United States and ROK currently operate under a 
``Special Measures Agreement'' (SMA) in which the ROK contributes 
toward U.S. costs associated with maintaining U.S. Forces in the 
country. A recent SASC review, entitled Inquiry into the U.S. Costs and 
Allied Contributions to Support the U.S. Military Presence Overseas, 
found that ROK SMA contributions are not keeping pace with the growth 
in U.S. costs.
    What is your assessment of the current level and quality of the 
burden-sharing arrangement?
    Answer. It is my understanding that the ROK provides cost sharing 
support for U.S. Forces stationed in Korea through the SMA program. SMA 
contributions are divided into three categories: labor, supplies and 
services, and construction. SMA support plays a key role in developing 
and maintaining force readiness by providing the Korean workers needed 
to support the force, making valuable supplies and services available, 
and building and modernizing facilities. Since negotiations are 
underway over a new SMA, I will refrain from commenting on this issue, 
but believe that the ROK should provide an appropriate level of support 
to maintain U.S. Forces in Korea.
    Question. The Department has said that it expects negotiations for 
a new SMA to begin this summer.
    What steps will you take to ensure those negotiations result in a 
fair sharing of the costs of maintaining the United States' military 
presence in ROK?
    Answer. It is my understanding that the United States is pursuing a 
requirements-based approach during ongoing State Department led 
negotiations over a post-2013 SMA. If confirmed, I will examine 
opportunities to ensure that our ROK ally provides fair and appropriate 
levels of cost sharing support.
    Question. A significant percentage of burden-sharing funds in 
recent years have been used to carry out construction supporting the 
consolidation of U.S. Forces at Camp Humphreys.
    Do you believe this funding trend should be continued, or that 
funding should be spread to critical requirements at other U.S. bases 
in the ROK?
    Answer. I have been informed that some ROK SMA contributions will 
continue to go to U.S. construction obligations under the Land 
Partnership Plan into 2014. This allows the United States to meet its 
obligations under the Strategic Alliance 2015 plan and the Land 
Partnership Plan. My intention, if confirmed, is to use ROK SMA 
contributions to continue to resource the highest priority U.S. 
operational and force readiness requirements across all Services and 
all bases in Korea. USFK's comprehensive campaign plan, to include the 
theater infrastructure master plan, appears to be an effective 
mechanism to prioritize these requirements.
    Question. The committee's review of U.S. costs and allied 
contributions to support U.S. military in Korea and elsewhere raised 
concern about the manner in which USFK accounts for host nation 
contributions in some cost benefit analyses. For example, the economic 
analyses of certain projects at Yongsan do not consider costs paid with 
host nation contributions, in effect, treating those contributions as 
``free money''.
    Do you agree that, in conducting cost benefit analyses, USFK should 
account for host-nation contributions, whether they be in cash or in-
kind, in the same manner as appropriated funds?
    Answer. I believe these contributions are a vital component of 
covering the costs of stationing U.S. Forces in Korea. This valuable 
resource must be managed in a responsible and effective manner. If 
confirmed, I will ensure that I understand how ROK burden sharing funds 
are incorporated into cost benefit analysis that support proposed 
courses of action.
    Question. What steps would you propose to improve oversight of how 
host nation funds are spent in the ROK?
    Answer. I agree that oversight of host nation cost sharing support 
is essential to ensure this valuable resource is used in the most 
effective and efficient manner. If confirmed, my intention is to comply 
with all policy and statutory requirements. Additionally, I intend to 
ensure we continue oversight procedures for U.S. military planning 
efforts in the ROK in close coordination with U.S. Pacific Command, the 
Joint Staff, and DOD.
            training of u.s. forces in the republic of korea
    Question. One of the challenges for the U.S. troops on the Korean 
Peninsula is training, particularly the access to training ranges for 
large ground unit maneuver and fires and for close air support 
missions.
    What is your understanding of the training challenges for U.S. 
Forces in the ROK, including the availability and access to training 
ranges for large ground unit maneuver and fires, close air support, and 
other Air Force training requirements?
    Answer. Availability and access to training ranges, I understand, 
continues to create significant challenges for Air Force Units on 
peninsula. The limited number of ranges and the requirement to share 
range time with our ROK partners causes significant training 
shortfalls. Range restrictions further limit opportunities to maintain 
proficiency in certain mission sets. 7th Air Force (7AF) units mitigate 
these shortfalls through off-peninsula deployments and training 
exercises.
    For ground, maritime, naval, and special operations components, I 
understand, ranges and training areas are sufficient to achieve both 
service standards in training as well as unique mission training 
requirements with few exceptions. Live fire and maneuver training is 
conducted on U.S. Army, ROK Army, ROK Air Force, ROK Navy, ROK Special 
Forces, and ROK Marine Force ranges and training maneuver areas. The 
training areas notably include maritime forcible entry operations (over 
the beach maneuver) as well as blue water maneuver areas.
    Question. In your view, are the ranges in Korea adequate to meet 
the training requirements of U.S. Forces?
    Answer. It is my understanding that conditions for a fully trained 
force are met across all the components through innovative training 
both on and off the Peninsula. For all components, CFC is capable of 
executing tremendous live, virtual, constructive, and gaming 
capabilities to exercise bilateral, joint, and combined operations. 
This capability is showcased biannually during exercises Key Resolve 
and Ulchi Freedom Guardian, and the result is a highly trained force at 
the operational and high tactical level of war.
    For ground, maritime, naval, and special operations components, 
ranges and training areas are sufficient to achieve both service 
standards in training as well as unique mission training requirements 
with few exceptions. Live fire and maneuver training is conducted on 
U.S. Army, ROK Army, ROK Air Force, ROK Navy, ROK SOF, and ROK Marine 
Force ranges and training maneuver areas. The maneuver and live fire 
exercise training areas are capable of supporting reinforced Company 
size elements. The training areas notably include maritime forcible 
entry operations (over the beach maneuver) as well as blue water 
maneuver areas.
    The air component has the greatest challenges with on-Peninsula 
training ranges due to local restrictions and language barriers on the 
ROK-only ranges. The 7AF has mitigated these challenges through 
innovative use of the two dual-use ROKAF and Air Force training ranges 
and integration of off-Peninsula training exercises to cover local 
training gaps.
    Question. How will the overall readiness reduction of U.S. Forces 
due to budget cuts and sequestration, as forecast by the Chairman of 
the Joint Chiefs of Staff and Service Chiefs, impact U.S. Force 
capabilities in Korea?
    Answer. U.S. Force capabilities in Korea are inherently joint and 
require contributions from all services across all domains. I 
understand that USFK depends on Service providers to meet capability 
requirements; any impact to the Services will impact current theater 
capabilities, and the capabilities of planned reinforcements which are 
instrumental to mission accomplishment.
                   tour normalization in south korea
    Question. Prior to 2012, the Defense Department had contemplated 
full tour normalization for U.S. military personnel assigned to the 
Korean Peninsula. In March 2012, USFK's Commander said that DOD was 
``not able to afford Tour Normalization at this time.''
    Do you agree that full Tour Normalization is unaffordable? Please 
explain.
    Answer. Yes, Tour Normalization is unaffordable and unnecessary 
considering USFK's mission and posture. USFK determined that the cost 
of the initiative is not affordable, and there may be other options to 
improve readiness. PACOM agreed with the assessment and removed it from 
the PACOM 2012 Theater Posture Plan. Subsequently, DOD stopped pursuing 
Tour Normalization as an initiative for Korea.
    Question. USFK continues to face the challenge of funding 
infrastructure to support the large increase in Command Sponsored 
Families that resulted from Phase I of Tour Normalization--including 
the cost of family housing. The Committee's recent review of U.S. costs 
and allied contributions to support U.S. military in Korea and 
elsewhere concluded that approval of the U.S. Army's plan for a public-
private partnership to build family housing at Camp Humphreys ``would 
substantially increase long-term costs for U.S. taxpayers and set a 
troubling precedent for future military housing plans.''
    Given the unaffordability of the previously proposed Army's plan 
for family housing at Camp Humphreys, if confirmed, will you 
investigate alternate plans for providing family housing for 
servicemembers assigned to Camp Humphreys?
    Answer. Yes, if confirmed, I will investigate alternative plans, 
which is necessary to meet USFK's readiness requirements.
                            quality of life
    Question. Through investment in quality of life amenities, to 
include housing, health care, and recreation, the Department has worked 
to achieve the goal of making South Korea an ``assignment of choice'' 
for U.S. Forces.
    What do you consider to be the most essential quality of life 
programs for soldiers and their families stationed in Korea and, if 
confirmed, what would be your goals in this regard?
    Answer. I believe the most essential quality of life programs for 
servicemembers and their families serving in the Republic of Korea are 
access to quality living and working conditions and facilities, quality 
health care, and quality educational opportunities for dependent family 
members. If confirmed, I will advocate for and take actions to provide 
our servicemembers and family members with the best possible living and 
working environment, health care services, and educational 
opportunities for dependent family members.
    Question. What is your understanding of the capacity of DOD schools 
in South Korea to accommodate the increase in families/children 
associated with tour normalization?
    Answer. I understand the schools in Korea are being constructed to 
support a student population based upon the currently authorized 4,645 
command sponsored families.
                 medical care for u.s. forces in korea
    Question. One of the most important quality of life issues in Korea 
is ensuring access to high quality medical care for servicemembers of 
all military branches and their families. Separate medical chains of 
command responsible for providing health care, and the presence of non-
command-sponsored family members who need health services, among other 
factors, have presented challenges.
    If confirmed, how would you assess the management and delivery of 
health care services in South Korea for both command and non-command 
sponsored family members?
    Answer. Command sponsored family members are enrolled in TRICARE 
Prime and receive the same health benefits as active duty 
servicemembers and activated National Guard/Reserve members. 
Additionally, the host nation system accepts TRICARE and is robust 
enough to provide care to both Command Sponsored and non-Command 
Sponsored Families.
    I understand South Korea's advances in specialty care--to include 
surgical care, imaging, and therapeutics--is among the best in the 
world, with six institutions with whom U.S. Forces Korea conducts 
business certified in the Joint Commission International Surveys the 
last 2 years.
    If confirmed, I will continue to monitor and assess the 
availability and quality of health care for our servicemembers, 
civilians, and their families serving in the Republic of Korea.
                 sexual assault prevention and response
    Question. DOD and the Military Services have developed 
comprehensive policies and procedures to prevent and respond to 
incidents of sexual assault, including providing appropriate resources 
and care for victims of sexual assault. However, numerous incidences of 
sexual misconduct involving military personnel continue to occur. In 
2012, for the fourth year in a row, there were more than 3,000 reported 
cases of sexual assault in the military, including 2,558 unrestricted 
reports, and an additional 816 restricted reports. Moreover, a recent 
survey conducted by the DOD indicates that the actual number of sexual 
offenses could be considerably higher, as 6.1 percent of active duty 
women and 1.2 percent of active duty men surveyed reported having 
experienced an incident of unwanted sexual contact in the previous 12 
months.
    What is your assessment of the current sexual assault prevention 
and response program in USFK?
    Answer. USFK takes the prevention of sexual assaults very 
seriously. Sexual assault is a crime that violates basic human dignity 
and the standards of decency that we are sworn to uphold and protect. 
We cannot allow sexual assaults to injure our servicemembers and 
families, erode trust in each other and our institutions, or compromise 
readiness.
    All Services have commander-driven programs, with engaged 
leadership at all levels. These programs focus on education and 
culture, positive changes to the environment, and strict enforcement of 
standards to eliminate sexual assaults in our formations.
    Commanders will continue to aggressively investigate every 
allegation of sexual assault and hold accountable those who cannot live 
by our standards.
    Question. In your view, does the current sexual assault prevention 
and response program in USFK adequately address issues regarding sexual 
assaults involving DOD contractor personnel?
    Answer. Yes, as I understand it, the sexual assault prevention and 
response program in USFK adequately addresses issues regarding sexual 
assaults involving DOD Contractors.
    I understand that DOD Contractors serving in Korea have access to 
USFK sexual assault prevention and sexual assault response training 
resources and command policies. Additionally, contractors that are 
sexual assault victims have access to most USFK victim advocate 
resources.
    In Korea, I understand the Command often partners with local law 
enforcement in investigating and prosecuting sexual assaults committed 
by contractor personnel and either they will be prosecuted under Korean 
Law or they will be returned to the United States and prosecuted by the 
Department of Justice under the Military Extraterritorial Jurisdiction 
Act (MEJA).
    Question. What is your view of the adequacy of the training and 
resources in place to investigate and respond to allegations of sexual 
assault in the USFK area of responsibility?
    Answer. I understand that the training and resources in place to 
investigate and respond to allegations of sexual assault in the USFK 
area of responsibility is high-quality. U.S. Criminal Investigation 
Command (CID) recently stationed a Sexual Assault Investigator in Korea 
who provides direct guidance, review, and management of all CID sexual 
assault investigations in Korea. Each CID office in Korea has assigned 
multiple agents trained for interviewing sexual assault victims in 
support of sexual assault investigations. Trial Counsel works closely 
with agents as the agents investigate these offenses. If confirmed, I 
will closely review the adequacy of these resources.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults? Are you aware of any problem 
with the manner in which confidential reporting has been implemented 
and applied?
    Answer. I agree with the current reporting options and am not aware 
of any systemic problem with the manner in which confidential reporting 
has been implemented and applied.
    Protecting victims is paramount to ensuring that we get timely 
reports of sexual assaults and gain confidence within our ranks that 
leadership will do what is right. The recent change in DOD strategic 
plan guidance has helped eliminate barriers to reporting sexual 
assaults within our formations.
    The use of restricted and unrestricted reports serve as valuable 
options to our overall sexual assault program. They improve the 
military justice process to ensure more timely, thorough and efficient 
reporting, investigations and accountability.
    Question. What is your view of the willingness and ability of 
commanders to hold assailants accountable for their acts?
    Answer. Commanders care very deeply about this issue and they are 
up to the task. The commander is central to all we do in military 
units. We entrust them with tremendous responsibility and special trust 
and we must hold them accountable for reinforcing the highest standards 
of respect and trust. A foremost responsibility of all commanders is to 
maintain good order and discipline. Sexual assault eats at the core of 
the trust, respect, cohesiveness, and readiness that sustains our 
military. There is no doubt that all commanders must redouble their 
efforts to eliminate this problem; there are no shortcuts. I am 
confident, though, of the ability and willingness of our commanders to 
tackle the problem.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults have 
occurred?
    Answer. Commanders at every level are responsible for the behavior 
of their personnel and for the climate in their unit. Leaders must lead 
by example and instill the importance of standards, values and 
discipline in our formations.
    I understand USFK Headquarters has established a USFK Sexual 
Assault Task Force co-chaired by the USFK Deputy Chief of Staff and 
Command Sergeant Major. Established in June 2012, this working group 
meets monthly to coordinate efforts with components and experts on 
prevention measures, training factors, and sharing of best practices. 
Results and required actions are briefed directly to the USFK 
Commander.
    If confirmed, I plan to use this working group to review policies 
and programs that directly affect our sexual assault prevention and 
response program.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. The commander's role in military justice is longstanding 
and essential to the effectiveness of command in our forces. Removing 
commanders from the military justice system would signal a lack of 
confidence in our commanders that would undermine good order and 
discipline. It would foster doubt in our servicemembers in the 
competency and abilities of their commanders that are entrusted with 
their lives. The maintenance of good order and discipline is the 
responsibility of the commander. Removing this responsibility would 
certainly erode the ability of a commander to effectively command his 
unit.
    Question. If confirmed, what actions would you take to ensure 
senior level direction and oversight of efforts to prevent and respond 
to sexual assaults and to hold assailants accountable for their 
actions?
    Answer. If confirmed, I will lead by example. I will immediately 
review the associated policies and regulations and ensure effective 
prevention, reporting and response; including the establishment of 
critical and prioritized reporting requirements that ensure my 
immediate awareness of an assault in the command.
    I am confident that commanders take the responsibilities and 
authorities they have under the Uniform Code of Military Justice, with 
the utmost seriousness and will hold assailants accountable for their 
actions.
    If confirmed, I will publish in writing and communicate in multiple 
means my priorities and guidance.
    I will personally check the execution of my directives and the 
health of the environment through personal engagement with 
servicemembers and commanders.
    I will emphasize the importance of a healthy command climate and 
require accountability of commanders for their environment.
    I will form a multi-functional team that continuously explores 
prevention and response actions to close gaps and the implement best 
practices.
                    prevention of human trafficking
    Question. Following media reports connecting prostitution and human 
trafficking in Korea to U.S. military forces, Commander, U.S. Forces 
Korea, in 2004 instituted a zero tolerance policy regarding the illegal 
activities of prostitution and human trafficking. Under this policy, 
all USFK personnel, military and civilian, as well as contractors and 
their employees, are expected to comply with prohibitions, including 
observance of curfews and laws regarding off-limits areas and 
establishments, aimed at curtailing these practices.
    What effects have changes in U.S. policy, as well as new criminal 
laws implemented by the ROK, had on the incidence of prostitution and 
human trafficking in Korea?
    Answer. It is my understanding that U.S. and USFK policy has 
significantly increased education and awareness of prostitution and 
human trafficking activity, but recorded incidents are too few to note 
statistically meaningful changes.
    USFK maintains a zero tolerance policy and places establishments 
suspected of prostitution and/or human trafficking activity off-limits 
via the Armed Forces Disciplinary Control Board process.
    The Air Force component has been especially aggressive in recent 
months and has been successful in eliminating prostitution and human 
trafficking activity in the majority of establishments outside one 
base, and are aggressively pursuing action at another location.
    USFK heads a Combating Trafficking in Persons Task Force and works 
closely with each component and the U.S. Embassy staff to monitor 
prostitution and human trafficking activity and work cooperatively to 
combat it.
    Question. What further changes, if any, to the Uniform Code of 
Military Justice (UCMJ) and military regulations are needed in your 
judgment to ensure maximum effectiveness of the zero tolerance policy?
    Answer. I believe the UCMJ is well equipped to meet the challenges 
of indiscipline in our Armed Forces, to include allegations of 
prostitution and human trafficking. It is a crime under the UCMJ to 
engage in pandering and prostitution, and patronizing a prostitute. 
While the UCMJ does not specifically address human trafficking, human 
trafficking crimes are prosecuted under the UCMJ through charges of 
unbecoming, violation of a General Order, or violation of existing 
Federal laws criminalizing trafficking through assimilation.
    Question. If confirmed, what steps would you take to further 
enhance the effectiveness of the zero tolerance policy?
    Answer. If confirmed, I will reinforce efforts of the Armed Forces 
Disciplinary Control Board which is the Department of the Defense 
program to address problems with off-post establishments, through 
training and public awareness efforts. I will ensure my area commanders 
continue to work with local communities to eliminate prostitution and 
human trafficking.
                  north korea-pow-mia recovery efforts
    Question. From 1996-2005, the United States worked with the North 
Korean military to recover and repatriate the remains of American 
servicemembers who perished on the Korean peninsula. In the spring of 
2005, the United States halted the program and, despite efforts last 
year to restart the program, there has been no recovery operations 
since.
    In your opinion, under what conditions should the United States 
work with North Korea to repatriate the remains of American 
servicemembers found in North Korea?
    Answer. Although I cannot speak for national-level policy makers, 
from an operational perspective, I believe that a successful resumption 
of remains recovery operations in North Korea should be based upon 
North Korean guarantees for the safety and security of the U.S. 
servicemembers and civilians participating in the recovery operations 
and that the repatriations should be conducted in accordance with the 
provisions of the 1953 Armistice Agreement.
                            regional posture
    Question. In your opinion, how should the United States employ its 
forces in ROK to provide for regional presence and engagement, and to 
best respond to regional threats, provide support for out-of-area 
contingencies, and maintain readiness?
    Answer. Readiness to ``Fight Tonight'' is the number one priority 
and focus for USFK. I understand U.S. Forces in the ROK currently 
provide regional presence and engagement through participation in 
regional exercises.
    Employment must primarily support Deter, Defend, and Defeat in 
armistice and crisis on the Korean Peninsula. U.S. and ROK force 
employment will remain flexible enough to support U.S. Pacific Command 
Theater Security Cooperation in limited increments, in order to support 
response to regional threats and out-of-area contingencies.
    Employment and regional exercises will continue to promote regional 
peace and support U.S. regional partners and allies. These engagement 
efforts will best train our forces for contingency operations to 
respond to regional threats and also maintain readiness.
    Question. What adjustments, if any, do you anticipate having to 
make to your strategy if current budget cuts and sequestration cuts 
remain in place?
    Answer. I believe the fundamental strategy of UNC, CFC, and USFK 
will remain unchanged--we will continue to deter, maintain readiness, 
and engage with our ROK allies and U.N. Sending State partners. We 
will, however, have to carefully prioritize our resources to maintain 
readiness and capabilities within cost constraints.
    Question. What additional strategic risks do you think you will 
have to assume over the next 5 years in your area of responsibility if 
the current budget cuts and sequestration cuts remain in place?
    Answer. I see increased risks in terms of Alliance military 
readiness to meet increasing North Korean investments in asymmetric 
capabilities in various areas, including cyber and nuclear-capable 
missiles. Additionally, a reduction in resources could erode the 
confidence of our ROK allies in the strength of our deterrent and 
warfighting capabilities, and our commitment to their defense.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, I do.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes, I do.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, United Nations 
Command/Combined Forces Command/U.S. Forces Korea?
    Answer. Yes, I do.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, I do.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes, I do.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kelly Ayotte
                    recovery efforts in north korea
    1. Senator Ayotte. Lieutenant General Scaparrotti, the United 
States estimates there are 43 servicemembers missing who served in 
North Korea. Do you commit to working with U.S. Pacific Command (PACOM) 
and Joint Prisoner of War/Missing in Action (MIA) Accounting Command 
(JPAC) in order to support efforts to resume MIA recovery operations in 
North Korea?
    General Scaparrotti. I remain committed to working with PACOM and 
JPAC to resume the MIA recovery operations in North Korea. From an 
operational perspective, I believe that a successful resumption of 
remains recovery operations in North Korea should be based upon North 
Korean guarantees for the safety and security of the U.S. 
servicemembers and civilians participating in the recovery operations 
and that the repatriations should be conducted in accordance with the 
provisions of the 1953 Armistice Agreement.

               sequestration impact on u.s. forces korea
    2. Senator Ayotte. Lieutenant General Scaparrotti, what are your 
concerns regarding the impact of sequestration on readiness of U.S. 
Forces in Korea?
    General Scaparrotti. Although U.S. Forces Korea currently has a 
very high priority for funding and resources, I see increased risks on 
Alliance military readiness to meet increasing North Korean investments 
in asymmetric capabilities in various areas, including cyber and 
nuclear-capable missiles. Additionally, a reduction in trained and 
ready resources could erode the confidence of our ROK allies in the 
strength of U.S. deterrent and warfighting capabilities. In particular, 
full sequestration will ultimately reduce the readiness of response 
forces in CONUS that would deploy to Korea if deterrence fails.
    USFK will continue to carefully prioritize resources and work 
diligently with the Services to maintain readiness and capabilities 
within cost constraints. I intend to closely monitor readiness levels.

    combat operations and impact on u.s. national security interests
    3. Senator Ayotte. Lieutenant General Scaparrotti, according to the 
2012 Strategic Guidance, the United States now seeks to be able to 
conduct one major combat operation while only denying the objective of 
an opportunistic aggressor in a second region. This is a reduction from 
the longstanding goal of being able to conduct two simultaneous major 
combat operations.
    As the next Commander of U.S. Forces in Korea, how does this change 
from two major combat operations to one and a half, impact your 
thinking?
    General Scaparrotti. This construct is based on recognition of 
limited resources resulting from our constrained fiscal environment. 
These constraints can lead to greater risk, demanding a continual 
assessment of the strategic landscape and effective balance of 
resources. As the next Commander of U.S. Forces in Korea, my priority 
is to deter aggression against the Republic of Korea and if deterrence 
fails, defeat the threat. Maintaining stability on the Korean Peninsula 
and the Northeast Asia region requires the ability to ``Fight 
Tonight''. If U.S. Forces in Korea are called upon to act, we will need 
priority access to the resources required to undertake these missions. 
I will continue to evaluate the risk on the Peninsula and work closely 
with the U.S. Pacific Commander and the Services to ensure we have 
forces trained and ready.

    4. Senator Ayotte. Lieutenant General Scaparrotti, if our national 
security interests require us to intervene in Syria or Iran, does this 
1.5 assumption for defense planning undercut the resources you might 
have available should hostilities break out on the Korean peninsula?
    General Scaparrotti. Current plans take into account realistic 
force availability. Depending on the type and number of forces required 
if intervention in Syria or Iran is directed, it could have an adverse 
effect on resources available.

    5. Senator Ayotte. Lieutenant General Scaparrotti, would this 1.5 
assumption make it more likely that North Korea might undertake 
opportunistic aggression if we intervene elsewhere?
    General Scaparrotti. South Korean and U.S. military capabilities on 
the Peninsula have effectively deterred major North Korean military 
aggression for 60 years. We believe that Pyongyang recognizes these 
capabilities and knows it lacks the resources and foreign support 
necessary to execute a major attack should the United States be 
committed elsewhere.
                                 ______
                                 
    [The nomination reference of LTG Curtis M. Scaparrotti, 
USA, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 20, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    LTG Curtis M. Scaparrotti, 0000.
                                 ______
                                 
    [The biographical sketch of LTG Curtis M. Scaparrotti, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]

         Biographical Sketch of LTG Curtis M. Scaparrotti, USA

Source of Commissioned Service: USMA

Educational Degrees:
    U.S. Military Academy - BS - No Major
    University of South Carolina - ME - Administrative Education

Military Schools Attended:
    Infantry Officer Basic and Advanced Courses
    U.S. Army Command and General Staff College
    U.S. Army War College

Foreign Language(s): None recorded

Promotions:

------------------------------------------------------------------------
                Promotions                       Date of appointment
------------------------------------------------------------------------
2LT.......................................  7 Jun 78
1LT.......................................  7 Jun 80
CPT.......................................  1 Jan 82
MAJ.......................................  1 Jul 89
LTC.......................................  1 Jul 93
COL.......................................  1 May 99
BG........................................  1 Jan 04
MG........................................  9 Jul 07
LTG.......................................  15 Oct 10
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Aug 12..........................  Present...........  Director, Joint
                                                       Staff,
                                                       Washington, DC
Oct 10..........................  Jul 12............  Commanding
                                                       General, I Corps
                                                       and Joint Base
                                                       Lewis-McChord,
                                                       Joint Base Lewis-
                                                       McChord, WA/
                                                       Commander,
                                                       International
                                                       Security
                                                       Assistance Force
                                                       Joint Command/
                                                       Deputy Commander.
                                                       U.S. Forces-
                                                       Afghanistan,
                                                       Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Aug 10..........................  Sep 10............  Special Assistant
                                                       to the Commanding
                                                       General, XVIII
                                                       Airborne Corps
Oct 08..........................  Aug 10............  Commanding
                                                       General, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC/
                                                       Commanding
                                                       General, Combined
                                                       Joint Task Force-
                                                       76 and Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Jul 06..........................  Sep 08............  Director of
                                                       Operations, J-3,
                                                       U.S. Central
                                                       Command, MacDill
                                                       Air Force Base,
                                                       FL
Aug 04..........................  Jun 06............  Commandant of
                                                       Cadets, U.S.
                                                       Military Academy,
                                                       West Point, NY
Jun 03..........................  Jul 04............  Assistant Division
                                                       Commander
                                                       (Maneuver), 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany and
                                                       Operation Iraqi
                                                       Freedom, Iraq
Jul 01..........................  Jun 03............  Assistant Deputy
                                                       Director for
                                                       Joint Operations,
                                                       J-3, Joint Staff,
                                                       Washington, DC
Jun 99..........................  Jun 01............  Commander, 2d
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Jun 98..........................  Jun 99............  Chief, Army
                                                       Initiatives
                                                       Group, Office of
                                                       the Deputy Chief
                                                       of Staff for
                                                       Operations and
                                                       Plans, U.S. Army,
                                                       Washington, DC
Aug 97..........................  Jun 98............  Student, U.S. Army
                                                       War College,
                                                       Carlisle
                                                       Barracks, PA
May 96..........................  Jul 97............  G-3 (Operations),
                                                       10th Mountain
                                                       Division (Light),
                                                       Fort Drum, NY
May 94..........................  Apr 96............  Commander, 3d
                                                       Battalion, 325th
                                                       Infantry
                                                       (Airborne Combat
                                                       Team), U.S. Army
                                                       Southern European
                                                       Task Force,
                                                       Vicenza, Italy
                                                       and Operation
                                                       Support Hope,
                                                       Zaire/Rwanda,
                                                       Operation Joint
                                                       Endeavor. Bosnia-
                                                       Herzegovina and
                                                       Operation Assured
                                                       Response, Liberia
Feb 93..........................  May 94............  Executive Officer
                                                       to the Director
                                                       of Management,
                                                       Office of the
                                                       Chief of Staff,
                                                       Army, Washington,
                                                       DC
May 92..........................  Feb 93............  Lieutenant
                                                       Colonels
                                                       Assignment
                                                       Officer, Infantry
                                                       Branch, U.S.
                                                       Total Army
                                                       Personnel
                                                       Command,
                                                       Alexandria, VA
May 91..........................  May 92............  Chief, Operations
                                                       Branch, G-3
                                                       (Operations),
                                                       10th Mountain
                                                       Division (Light),
                                                       Fort Drum, NY
May 90..........................  May 91............  S-3 (Operations),
                                                       1st Brigade, 10th
                                                       Mountain Division
                                                       (Light), Fort
                                                       Drum, NY
Jun 89..........................  May 90............  S-3 (Operations),
                                                       1st Battalion,
                                                       87th Infantry,
                                                       10th Mountain
                                                       Division (Light),
                                                       Fort Drum, NY
Jul 88..........................  Jun 89............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
May 85..........................  Jun 88............  Tactical Officer,
                                                       later Aide-de-
                                                       Camp to the
                                                       Superintendent,
                                                       U.S. Military
                                                       Academy, West
                                                       Point, NY
May 84..........................  May 85............  Student,
                                                       University of
                                                       South Carolina,
                                                       Columbia, SC
Oct 83..........................  May 84............  Student, Infantry
                                                       Officer Advanced
                                                       Course, Fort
                                                       Benning, GA
Apr 82..........................  Sep 83............  Commander, B
                                                       Company, 3d
                                                       Battalion
                                                       (Airborne), 325th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Nov 80..........................  Apr 82............  S-3 (Air), 3d
                                                       Battalion
                                                       (Airborne), 325th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Dec 79..........................  Oct 80............  Anti-Tank Platoon
                                                       Leader, Combat
                                                       Support Company,
                                                       3d Battalion
                                                       (Airborne), 325th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Apr 79..........................  Dec 79............  Rifle Platoon
                                                       Leader, A
                                                       Company, 3d
                                                       Battalion
                                                       (Airborne), 325th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Director, Joint Staff,            Aug 12-Present....  Lieutenant General
 Washington, DC.
Commanding General, Combined      May 09-Jun 10.....  Major General
 Joint Task Force-76, Operation
 Enduring Freedom, Afghanistan.
Director of Operations, J-3,      Jul 06-Sep 08.....  Brigadier General/
 U.S. Central Command, MacDill                         Major General
 Air Force Base, FL.
Assistant Deputy Director for     Jul 01-Jun 03.....  Colonel
 Joint Operations, J-3, Joint
 Staff, Washington, DC.
------------------------------------------------------------------------


Summary of operational assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Commanding General, Combined      May 09-Jun 10.....  Major General
 Joint Task Force-76, Operation
 Enduring Freedom, Afghanistan.
Assistant Division Commander      Jun 03-Jul 04.....  Colonel/Brigadier
 (Maneuver), 1st Armored                               General
 Division, U.S. Army Europe and
 Seventh Army, Germany and
 Operation Iraqi Freedom, Iraq.
Commander, 3d Battalion. 325th    May 94-Apr 96.....  Lieutenant Colonel
 Infantry (Airborne Combat
 Team), U.S. Army Southern
 European Task Force, Vicenza.
 Italy and Operation Support
 Hope, Zaire/Rwanda, Operation
 Joint Endeavor, Bosnia-
 Herzegovina and Operation
 Assured Response, Liberia.
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal
    Distinguished Service Medal (with Oak Leaf Cluster)
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with four Oak Leaf Clusters)
    Bronze Star Medal (with two Oak Leaf Clusters)
    Meritorious Service Medal (with four Oak Leaf Clusters)
    Army Commendation Medal (with four Oak Leaf Clusters)
    Army Achievement Medal
    Combat Action Badge
    Expert Infantryman Badge
    Master Parachutist Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Curtis M. 
Scaparrotti, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Curtis M. Scaparrotti.

    2. Position to which nominated:
    Commander, United Nations Command/Combined Forces Command/U.S. 
Forces Korea.

    3. Date of nomination:
    May 20, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 5, 1956; Logan, OH.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cindy S. (Bateman) Scaparrotti.

    7. Names and ages of children:
    Michael L. Scaparrotti, 31.
    Stephanie M. (Scaparrotti) High, 27.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None other than listed in service record.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    I am a trustee in two living trusts which were created as part of 
our estate planning. The trusts are:

         The Curtis M. Scaparrotti Living Trust
         The Cindy S. Scaparrotti Living Trust

    My wife and I are listed as trustee in both trusts. The contents of 
the trusts are all our personal property and home furnishings. 
Additionally, our investments listed in the SF 278, on pages 6 thru 8 
of 18, as Living Trust items 7.0 to 7.19, are in her trust. None of the 
contents of either trust create a potential conflict of interest.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Association of the U.S. Army
    Life Member, 82nd Airborne Division Association
    Life Member, 1st Airborne Division Association
    Life Member, U.S. Army War College Alumni Association

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    The Ellis Island Medal of Honor

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes, I do agree.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes, I do agree.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             Curtis M. Scaparrotti.
    This 16th day of January, 2013.

    [The nomination of LTG Curtis M. Scaparrotti, USA, was 
reported to the Senate by Chairman Levin on July 30, 2013, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 1, 2013.]


NOMINATIONS OF HON. DEBORAH LEE JAMES TO BE SECRETARY OF THE AIR FORCE; 
   HON. JESSICA GARFOLA WRIGHT TO BE UNDER SECRETARY OF DEFENSE FOR 
 PERSONNEL AND READINESS; MR. FRANK G. KLOTZ TO BE UNDER SECRETARY OF 
 ENERGY FOR NUCLEAR SECURITY; MR. MARCEL J. LETTRE II TO BE PRINCIPAL 
 DEPUTY UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE; AND MR. KEVIN A. 
    OHLSON TO BE A JUDGE OF THE U.S. COURT OF APPEALS FOR THE ARMED 
                                SERVICES

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, McCaskill, 
Udall, Hagan, Shaheen, Gillibrand, Blumenthal, Donnelly, Kaine, 
King, Inhofe, McCain, Chambliss, Wicker, Ayotte, Graham, 
Vitter, Blunt, and Lee.
    Other Senator present: Senator Conrad.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Jonathan S. Epstein, counsel; Gabriella E. Fahrer, counsel; 
Creighton Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, general counsel; 
Thomas K. McConnell, professional staff member; Mariah K. 
McNamara, special assistant to the staff director.
    Minority staff members present: John A. Bonsell, minority 
staff director; Daniel C. Adams, minority associate counsel; 
Steven M. Barney, minority counsel; William S. Castle, minority 
general counsel; Samantha L. Clark, minority associate counsel; 
Allen M. Edwards, professional staff member; Anthony J. 
Lazarski, professional staff member; Daniel A. Lerner, 
professional staff member; and Robert M. Soofer, professional 
staff member.
    Staff assistants present: Daniel J. Harder and Kathleen A. 
Kulenkampff.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jason Rauch, assistant to Senator 
McCaskill; Casey Howard, assistant to Senator Udall; 
Christopher Cannon, assistant to Senator Hagan; Mara Boggs, 
assistant to Senator Manchin; Patrick Day, assistant to Senator 
Shaheen; Moran Banai and Brooke Jamison, assistants to Senator 
Gillibrand; Marta McLellan Ross, assistant to Senator Donnelly; 
Karen Courington, assistant to Senator Kaine; Steve Smith, 
assistant to Senator King; Paul C. Hutton IV, assistant to 
Senator McCain; Lenwood Landrum, assistant to Senator Sessions; 
Todd Harmer, assistant to Senator Chambliss; Joseph Lai, 
assistant to Senator Wicker; Brad Bowman, assistant to Senator 
Ayotte; Peter Schirtzinger, assistant to Senator Fischer; Craig 
Abele, assistant to Senator Graham; Joshua Hodges, assistant to 
Senator Vitter; Robert Moore, assistant to Senator Lee; and 
Jeremy Hayes, assistant to Senator Cruz.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to consider the nominations for a number of 
important and challenging assignments within the Department of 
Defense (DOD).
    We welcome Deborah James, who is nominated to be Secretary 
of the Air Force; Jessica Wright, who is nominated to be Under 
Secretary of Defense for Personnel and Readiness; Frank Klotz, 
nominated to be the Under Secretary of Energy for Nuclear 
Security; Marcel Lettre, nominated to be Principal Deputy Under 
Secretary of Defense for Intelligence; and Kevin Ohlson, 
nominated to be a judge of the U.S. Court of Appeals for the 
Armed Forces.
    We also welcome your family members here this morning. The 
committee recognizes the immense contribution which are made by 
families and other friends for the success of the efforts which 
you undertake. We thank them for joining us today.
    Our witnesses, during their opening statements, should feel 
free to introduce family members and others who are here to be 
with them today.
    We're especially pleased to welcome back to our committee 
Senator Conrad, who is a--I won't say an ``old friend,'' 
because he still looks a lot younger than he did when he left 
the Senate. I hope there is a connection between the two, for 
personal reasons. [Laughter.]
    But, he's been a dear friend of all of us, and he made such 
a contribution here, when he was here, that we think about him 
all the time. Please feel welcome here as you introduce Mr. 
Klotz, and say hi to Lucy for us, too, if you would.
    The positions to which the witnesses have been nominated 
are some of the most demanding in the Department of Defense. We 
thank all of our nominees for their commitment and dedication, 
and especially for their willingness to continue to serve our 
country.
    The Secretary of the Air Force is responsible for seeing to 
all Department of the Air Force affairs, including organizing, 
training, equipping, and providing for the welfare of nearly 
330,000 Active Duty men and women, 176,000 Air National Guard 
and Air Force Reserve members, 186,000 civilians and their 
families. If confirmed, Ms. James will assume control at a time 
of immense fiscal challenge. Her responsibility to oversee the 
Air Force's annual budget of more than $110 billion is going to 
require the wise balancing of risk across the force while also 
ensuring core Air Force capabilities remain robust.
    The Under Secretary of Defense for Personnel and Readiness 
is the Secretary of Defense's senior policy advisor on a range 
of issues, including total force management, military and DOD 
civilian personnel policy, healthcare, and compensation. If 
confirmed for this position, Ms. Wright will play a critical 
role in the Department's efforts to address many difficult 
issues; chief among them, eliminating the scourge of sexual 
assault and sexual harassment in our military. Ms. Wright is no 
stranger to the rigors of this position, having already served 
in an acting capacity for several months.
    If confirmed as the Under Secretary of Energy for Nuclear 
Security, Mr. Klotz will be the administrator for the National 
Nuclear Security Administration (NNSA). His responsibilities 
will include overseeing the safety, reliability, and 
performance of the Nation's nuclear weapons stockpile and 
promoting international nuclear safety and nonproliferation. 
Mr. Klotz has held numerous positions in the fields of arms 
control and nuclear policy, including advising the President as 
the Director for Nuclear Policy and Arms Control on the 
National Security Council staff, experiences that will surely 
serve him well.
    The Principal Deputy Under Secretary of Defense for 
Intelligence is a new position that will serve as the primary 
staff assistant and advisor to the Under Secretary of Defense 
for Intelligence. His responsibilities will include policy and 
strategic oversight of all DOD intelligence activities, 
counterintelligence and security policy, plans and programs, 
and exercise planning. Mr. Lettre has spent several years in 
the halls of the Pentagon, where he's currently serving as the 
Special Assistant to the Secretary of Defense, and, prior to 
that, as the Principal Deputy Assistant Secretary of Defense 
for Legislative Affairs.
    Mr. Ohlson, if confirmed, will join four other civilian 
judges as a member of the U.S. Court of Appeals for the Armed 
Forces, the highest court for military personnel on Active Duty 
and others subject to the Uniform Code of Military Justice 
(UCMJ) and others subject to the UCMJ beside personnel who are 
on Active Duty. The court exercises jurisdiction over all 
appeals from U.S. military courts and is a vital part of the 
military justice system. Mr. Ohlson has many years of relevant 
experience, serving currently as the chief of the Department of 
Justice's Professional Misconduct Review Unit and previously in 
the Office of the Attorney General and as a Judge Advocate 
General (JAG) in the Army. This extensive background makes Mr. 
Ohlson a strong candidate for this judicial role.
    Again, we welcome all of our nominees today. We look 
forward to your testimony.
    I now will call on Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. You've done a good 
job of describing what you guys are going to be involved in, 
but, at the risk of sounding negative, I look at some of the 
problems that you'll be faced with. General Klotz, you'd be 
taking the reins of the NNSA at a time that is really difficult 
right now. I think you know that, and I'm anxious to hear your 
testimony.
    Congress has serious concerns about the management of the 
administration, especially in respect to the cost-growth 
schedule slippage in all of that. We look forward to your 
thoughts on that.
    Ms. Wright, again, I apologize for not having been there 
when you were at our scheduled visit, but we had a chance to 
visit vicariously anyway. You've served as the Acting Under 
Secretary since January of this year, and have been involved in 
a lot of important but controversial things. I am concerned 
about your thoughts on sexual assault, religious expression. 
I'm troubled by your September 4, 2013, decision concerning 
administrative leave. I'm also concerned about the impact of 
our civilian personnel furloughs. I know that we suffered some 
24,000, just in my State of Oklahoma, 14,000 just at Tinker Air 
Force Base. It is serious, and I'm just wondering what we are 
accomplishing from that.
    Ms. James, the Air Force is forced to ground a third of its 
combat-coded Active squadrons for a time during 2013. According 
to the Chief of Staff of the Air Force, it will now cost a 
minimum of 10 percent more for flying hours to recover, back 
where we were. It's a tough time that you're getting into that 
position.
    It's also been reported that the Air Force is considering 
the retirement of its entire fleets of aircraft, including the 
A-10s, F-15Cs, B-1s, and the KC-10s. I'm very much concerned 
about this. It's a disarming of America that bothers me a great 
deal.
    Mr. Lettre, if confirmed, you'll be confronted with a 
number of significant challenges, including the ongoing 
uncertainty in Syria, and then the challenges in Iran, which 
have always concerned me more than the problems in Syria, quite 
frankly. The cyber operations, the development of a national 
cyber force, are also things that are going to be--you're right 
in at the ground floor of that--a matter of keeping up with the 
competition. It's going to be tough.
    Finally, Mr. Ohlson, in terms of military justice, I know 
there are people like Senator Graham and others who have had a 
lot more personal experience. I go all the way back to before 
you guys were born, when I was in the Army and was a court 
reporter for the justice system, and I've developed some pretty 
strong feelings about it since that time.
    I look at you, and I wonder why in the world you're doing 
this, but I'm glad you are, and we're anxious to hear your 
testimony.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    I'm going to ask the standard questions of all of our 
civilian nominees first, then I'm going to call on Senator 
Conrad, who is going to introduce Mr. Klotz, and then I'm going 
to go to the order in which we've indicated on our hearing 
notice, calling first on you, Ms. James.
    First let me start with the questions that I ask all of our 
civilian nominees.
    In order to exercise its jurisdiction, we must receive 
testimony, briefings, and other communications of information; 
and so, these questions and their answers become very important 
to us.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    [All five witnesses answered in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    [All five witnesses answered in the negative.]
    Will you ensure that your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings?
    [All five witnesses answered in the affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    [All five witnesses answered in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings?
    [All five witnesses answered in the affirmative.]
    Do you agree, if confirmed, to appear and testify, upon 
request, before this committee?
    [All five witnesses answered in the affirmative.]
    Finally, do you agree to provide documents, including 
copies of electronic forms of communication, in a timely manner 
when requested by a duly-constituted committee, or to consult 
with the committee regarding the basis for any good-faith delay 
or denial in providing such documents?
    [All five witnesses answered in the affirmative.]
    Thank you all.
    Now let me call on Senator Conrad.

 STATEMENT OF HON. KENT CONRAD, U.S. SENATOR FROM THE STATE OF 
                     NORTH DAKOTA, RETIRED

    Senator Conrad. Thank you, Mr. Chairman. I also want to 
acknowledge the ranking member of the committee, Mr. Inhofe. 
Thank you very much for this opportunity to introduce General 
Klotz. I might say that I miss very much our association after 
retiring.
    I want to acknowledge that General Klotz is here with his 
wife, Nancy, as well as his son, Justin. His son, Justin, 
actually runs a nursing home, which may have special relevance 
for me now that I've left the Senate, may have special 
relevance for some of you who are about to leave.
    Chairman Levin. Thank you for reminding us. [Laughter.]
    Senator Conrad. It is so good to be back with colleagues 
that I like and respect.
    I am here to commend to you General Frank Klotz, somebody 
that I've known for more than 20 years and have grown to 
greatly respect.
    Frank Klotz is a renaissance man. He's extremely well 
educated, he has a distinguished service in the military, and 
he has a remarkable record of accomplishment in the diplomacy 
of arms control.
    Let me just briefly remind you of part of his life story:
    In 1973, he graduated with distinction from the U.S. Air 
Force Academy. He was named a Rhodes Scholar and holds a Ph.D. 
from Oxford. In 1983, the U.S. Jaycees [U.S. Junior Chamber] 
named him one of the ten outstanding young men of America. In 
1986, he became commander of the Strategic Missile Squadron at 
Grand Forks Air Force Base in North Dakota. In 1990, he was 
made the chief of the Nuclear Biological and Chemical Plans 
Branch at the U.S. Mission to the North Atlantic Treaty 
Organization (NATO) in Brussels, Belgium. In 1991, he became 
commander of the 321st Operations Group at Grand Forks Air 
Force Base, ND. In 1993, he became director of the Chief of 
Staff's Operations Group at the U.S. Air Force Headquarters 
here in Washington. In 1995, he became commander of the 91st 
Missile Group at Minot Air Force Base, ND.
    Notice a pattern, here? [Laughter.]
    North Dakota--Grand Forks, ND; Minot, ND.
    In 1999, he was our Defense Attache in Moscow. He was the 
senior U.S. military officer based in Russia. In 2001, he 
became the Director for Nuclear Policy and Arms Control at the 
National Security Council in the White House. In that position, 
he advised the President on all aspects of nuclear weapons 
policy. He represented the White House in talks leading to the 
2002 Moscow Treaty that reduced deployed weapons by two-thirds. 
As I recall, that treaty passed the Senate on a vote of 95 to 
0. Pretty good.
    In 2003, he became Commander of the 20th Air Force. In that 
position, he led 9,500 men and women of our intercontinental 
ballistic missile forces. In 2005, he became Vice Commander of 
U.S. Space Command, so he was second in command of over 39,000 
men and women. In 2006, he was awarded the General Thomas D. 
White Trophy for Most Outstanding Contribution to Aerospace. In 
2007, he became the Assistant Vice Chief of Staff and Director 
of the Air Force staff--again, here at headquarters.
    In 2009, he became Commander of Global Strike Command at 
Barksdale Air Force Base in Louisiana. He stood up that 
command. In that position, he led 23,000 Americans, men and 
women, and oversaw all nuclear-capable bombers and missiles.
    In 2011, he won the prestigious General Larry D. Welch 
Award for his leadership. In 2011, he became a senior fellow at 
the Council of Foreign Relations.
    This is an uncommon man with a common touch. He is smart, 
with remarkably good judgment, who has dedicated his life to 
the defense of our country. I could not be more honored than to 
recommend to you General Frank Klotz to be Under Secretary of 
Energy for Nuclear Security. I know of no one more qualified or 
more prepared for the position than General Frank Klotz.
    Thank you very much for this time. It's good to see you all 
again, and I hope I'll have other chances to see you in the 
future.
    Chairman Levin. Thank you so much, Senator Conrad, for a 
very powerful and heartfelt introduction. We know you have to 
leave, so please feel free to do that.
    Ms. James.

STATEMENT OF HON. DEBORAH LEE JAMES, TO BE SECRETARY OF THE AIR 
                             FORCE

    Ms. James. Thank you, Mr. Chairman and Senator Inhofe, 
other members of the committee. I am deeply, deeply 
appreciative of the opportunity to appear before all of you 
today. I want to also thank Secretary Hagel for his support, as 
well as President Obama for the confidence that he has placed 
in me by putting my name forward as the nominee to be the 23rd 
Secretary of the Air Force.
    Needless to say, I view this opportunity as the privilege 
and an honor of a lifetime. If confirmed, I will work very hard 
to ensure that I live up to what is an enormous amount of trust 
that may be placed in me.
    I'd also like to take just a moment to say to all of the 
airmen who may be with us today here in the committee room, or 
who may be listening from elsewhere--I want to wish them all a 
very happy 66th birthday. I think I speak, certainly, for all 
of this panel and all of America to say that we are very proud 
of our Air Force. I know I am.
    I also want to recognize some very important people who are 
in my life. They're very important to me, personally, and they 
give me great joy every day. Seated behind me is Frank Beatty, 
my husband, and three of our four children. With me today is 
Sam Lee, Regina Lee, and Michelle Beatty. Paul, our fourth 
child, could not be with us here today. He is in school at 
George Mason University, and he was not going to cut class. I 
thought that was a good decision on his part.
    Chairman Levin. Well, what is the excuse for these kids who 
are with you, then? [Laughter.]
    Ms. James. But, anyway, you guys, thank you so much for 
being here and supporting me. I love you all very much.
    Incidentally, Senators, I would love you to know that Sam 
and Regina were here with me almost precisely 20 years ago when 
I first appeared before this committee to be considered as the 
Assistant Secretary of Defense for Reserve Affairs. If you take 
a real good look at them now, I think you will agree with me 
that they are a whole lot taller and much less squirmy than 
they were 20 years ago.
    I also notice that I have quite a few friends and 
colleagues who turned out to support me, so a quick shout-out 
and thanks to Michelle and Tom, Amy, Jim, Mason, Linda, 
Seileen, Paula, Larry, Louise, Mick, Tom--I have quite a gang 
back there. Thank you all very much; it means a great deal that 
you've taken the time to be here.
    Senators, I have worked for more than 3 decades as a 
civilian in support of our military. I've had experience in the 
executive branch, on Capitol Hill; I've been in the world of 
think tanks; and I've been in the defense industry. I've also 
been a volunteer in some of the wonderful nonprofit 
organizations that help our military, our veterans, and their 
families in ways that the Government simply cannot.
    Specifically, I've served 17 years in the Government and 15 
years in the private sector. My prior Government service 
includes a decade where I served on the staff of the 
professional staff of the House Armed Services Committee, and 
then I was 5 years in the Pentagon as the Assistant Secretary 
of Defense for Reserve Affairs.
    Currently, I'm serving as a member of the Defense Advisory 
Committee on Women in the Services (DACOWITS), which is an 
advisory body to the Secretary of Defense on matters affecting 
our women in uniform. While in the private sector, I've spent 
the bulk of my time with the company which is my current 
company, Science Applications International Corporation (SAIC).
    I'd like to now come right to the point and give you my 
bottom line and that is, I'm coming before you today absolutely 
committed to keeping the U.S. Air Force the very best air force 
in the world. Now, what does this mean to me? If confirmed, it 
means that I want to focus on people. As you said, Senator, 
there's more than 690,000 Active Duty, Reserve, Guard, and 
civilian airmen who form the backbone of everything that we do. 
It also means taking on that which will most assuredly be 
program budget decisions, making tradeoffs, finding the right 
balance between preserving the Air Force of today and building 
toward the Air Force of tomorrow. I have no illusions, this is 
going to be very hard, and we'll need everybody's help to get 
there from here.
    It means ensuring that our Air Force is ready to take on 
whatever missions our leaders may task, missions to protect us 
and our interests overseas, as well as missions to protect 
Americans here at home.
    Since virtually all missions nowadays are joint, it also 
means being an effective partner with the Army, Navy, Marine 
Corps, and Coast Guard. Ultimately, here's what it means. This 
would be my goal, if confirmed, and that would be to leave our 
Air Force, some years from now, on a path toward greater 
capability and better affordability for our taxpayers and with 
the people, who underpin everything, who are second to none. I 
pledge to you to work on all of these areas very hard, if 
confirmed.
    I'd like to close by thanking the members of this 
committee, as well as the professional staff, personal staff 
that I see in the background, because I know that our military 
would not be the military that it is today had it not been for 
all of your efforts and all that has happened that has brought 
us here today.
    Thank you, and I look forward to your questions.
    Chairman Levin. Thank you very much, Ms. James.
    Secretary Wright.

STATEMENT OF HON. JESSICA GARFOLA WRIGHT, TO BE UNDER SECRETARY 
             OF DEFENSE FOR PERSONNEL AND READINESS

    Ms. Wright. Good morning. Chairman Levin, Ranking Member 
Inhofe, members of the committee, I am humbled to be sitting 
before you, and I thank you for the opportunity to be here 
again. I'm very grateful for the confidence that President 
Obama has placed in me, first to nominate me as the Assistant 
Secretary of Defense for Reserve Affairs and now the Under 
Secretary of Defense for Personnel and Readiness. I want to 
thank Secretary Hagel and Deputy Secretary Carter for their 
support of my nomination.
    It's been my great honor to serve this Nation, first in 
uniform, for 35 years, and the last 2-plus years as a civilian 
with the Department of Defense.
    My career in public service would not have been possible 
without my family. My husband, Chuck, who is here with me 
today, is my most avid supporter and my champion. He's a 
combat-tested Army officer who retired with 24 years of 
service. Our son, Mike, is an Army lieutenant, and he is 
presently serving in Afghanistan. I have a great pleasure to 
recognize my mom, Cass. She's here with me today, too. She's 
the reason that I clearly have grown into an independent woman.
    A few days ago, our family buried our dad, John Garfola. My 
dad served in World War II as a combat medic in the China-
Burma-India campaign. He was the role model for my family, and 
he is my hero.
    I've enjoyed the tremendous opportunity of serving as the 
Acting Secretary of Defense for Personnel and Readiness since 
January of 2013. In this role, I have the responsibility of 
advocating for the outstanding men and women of our Active, 
Guard, and Reserve components, and their families, and the 
dedicated Department of Defense civilians. It is evident to me 
that our people, and those that support them, are the 
Department's greatest asset and their strength.
    I fully acknowledge that there are many challenges facing 
the Department, and the most pressing challenge is the 
constrained fiscal climate. The Department has two sacred 
obligations. One is to care for its people, who are willing to 
sacrifice their lives in order to protect the national 
interest, and the second is to ensure the national security of 
the United States. Having had the privilege of wearing our 
country's uniform for 35 years, I bring a special understanding 
to both obligations. Our servicemembers and their families 
selflessly put the interests of our Nation first. Because of 
the sense of duty, the America's military remains one of the 
most trusted institutions in our society. If confirmed, I look 
forward to supporting Secretary Hagel, to ensure that the 
Department honors both of its obligations, and to sustain an 
agile, capable force.
    One of the most significant challenges we face is the 
stress on our force as a result of the long, continuous period 
of armed conflict. For more than a decade, we've repeatedly 
deployed servicemembers to combat zones, hotspots, and areas of 
the world that are devastated by natural disaster, separating 
them from their loved ones for months and years at a time. 
Although our servicemembers never hesitate to answer the 
Nation's call, this call causes the toughest challenges on the 
battlefield and here at home. Our servicemembers and their 
families are under significant strain. Their minds, their 
bodies, their spirits require healing. If confirmed, I will 
ensure that the efforts necessary to provide care for our 
people are continued.
    This year, the Department celebrated the 40th anniversary 
of the All-Volunteer Force. This force helped win the Cold War, 
stood against aggression in the Persian Gulf, kept peace in the 
Balkans, fought in Iraq and Afghanistan. In the next several 
years, we, as a Nation, will be further challenged by shifting 
operational requirements abroad, evolving threats to national 
security, and significant budget challenges. If confirmed, I 
will be vigilant and ensure the Department provides the 
leadership and vision necessary to rebalance, adapt, and 
involve the All-Volunteer Force as it has done so well over the 
last 40 years. I'm also committed to ensuring that we maintain 
the military's status as the strongest, most capable, most 
respected fighting force in the history of the world. I'm 
grateful to the members of this committee for your continued 
leadership for the support of our military forces, their 
families, and the civilian employees of the Department of 
Defense. If the Senate confirms me for this position, I pledge 
that I will work diligently with you to best serve the men and 
women of the Department and their families. I'm deeply honored 
for this nomination and the potential to continue to serve our 
Nation.
    Thank you, and I look forward to your questions.
    Chairman Levin. Thank you, Secretary Wright.
    General Klotz.

   STATEMENT OF MR. FRANK G. KLOTZ, TO BE UNDER SECRETARY OF 
                  ENERGY FOR NUCLEAR SECURITY

    Mr. Klotz. Thank you, Chairman Levin, Ranking Member 
Inhofe, distinguished members of this committee. It's a great 
honor to again appear before the Senate Armed Service 
Committee. The uniform I'm wearing today may be different this 
time, but my desire to serve our Nation remains as strong as it 
ever was. For that reason, I'm enormously grateful to President 
Obama and Secretary Moniz for their trust and confidence in 
putting forward my nomination as Under Secretary and 
Administrator of the NNSA.
    I'm also thankful to Senator Kent Conrad for his very 
generous and gracious introduction. Senator Conrad has been a 
mentor, a role model, and a dear friend for many years. I had 
the opportunity to work closely with him on several challenges 
confronting our Nation's nuclear deterrent forces, and always 
in a very open and candid and collaborative manner. I like to 
think that we did some very worthy and noble work together.
    I'd also like to thank my wife, Nancy, for her loving and 
steadfast support, not just today but for the nearly 40 years 
we shared on Active Duty, including the 29 times that she had 
to uproot home and family as we moved to new assignments.
    Our oldest son, Justin, who lives in Philadelphia and, as 
you heard--Senator Conrad said, is administrator of a long-term 
care facility, is also here today. Our youngest son, David, is 
watching in Boston via webcam.
    The spouses and children of those who wear our Nation's 
uniform serve in countless and often unrecognized ways, and 
routinely deal with many difficulties and hardships. They, too, 
deserve our deepest respect and our gratitude for their own 
invaluable contributions to our country. I'm certainly very 
proud of my wonderful family and their accomplishments.
    I'm also delighted to be joined by my best friend and 
classmate of the Air Force Academy, the Class of 1973, which, 
as we speak, is convened out in Colorado Springs for our 40th 
anniversary. Steve was the first graduate of any Service 
Academy to become a Catholic priest, and today he is the 
President of Saint Luke Institute in Silver Spring, MD.
    Finally, but certainly not least, Oliver Bloom, who serves 
as my research associate at the Council on Foreign Relations, 
is also here. He's a recent graduate of Princeton University 
but hails from the State of New Hampshire.
    The NNSA has a unique and special responsibility for 
pursuing two different but complementary principles that have 
traditionally guided American nuclear weapons policy:
    The first is that the United States must continue to lead 
international efforts to limit and reduce nuclear arsenals, 
combat nuclear proliferation, and secure nuclear materials 
across the globe.
    The second principle is that appropriately sized nuclear 
forces still play an essential role in protecting U.S. and 
allied security interests even as we seek to reduce the overall 
number and role of nuclear weapons in our national security 
policy. As President Obama and congressional members have 
repeatedly emphasized: as long as nuclear weapons exist, we 
must maintain a safe, secure, and effective nuclear arsenal.
    If confirmed to be the Under Secretary and the 
Administrator of the NNSA, my highest priority will be to 
ensure that the NNSA delivers on the commitments made to 
Congress and to its many stakeholders in sustaining our nuclear 
weapons stockpile, both now and in the future, in conducting 
leading-edge scientific research and preventing nuclear 
materials from falling into the hands of terrorists and would-
be proliferators, in supporting the Navy's nuclear reactor 
program, in modernizing our facilities to meet the demands of 
the future, and in protecting the safety and security of our 
sites, our employees, and the public.
    The Military Services often say that people are their most 
important asset. It's true. It applies to the NNSA, as well. 
Highly-trained, experienced, and motivated scientists, 
engineers, technicians, and security personnel are essential to 
performing the highly complex and technically challenging task 
associated with the nuclear security enterprise. If confirmed, 
I will be guided by the principle of ``mission first, people 
always''. To this end, I will be an unrelenting champion for 
the professional development and personal welfare of everyone 
associated with the NNSA, including recruiting and mentoring 
the next generation of leaders and scientists.
    The NNSA performs enormously important work each and every 
day. Its many successes go largely unheralded. It has made 
tremendous progress in helping to achieve the President's goal 
of securing vulnerable nuclear materials around the globe. It 
is delivering the life-extended W76-1 warhead to the Navy on 
schedule and is currently transferring work at the Kansas City 
plant into a new, modern facility that will greatly improve 
efficiency. That plant, by the way, has been constructed on 
time and on budget.
    That said, escalating costs in several major programs are a 
cause for serious concern, especially as pressures mount on 
overall government spending. Restoring trust in the NNSA's 
ability to deliver on its commitment requires strong leadership 
focus on managing cost to deliver capability for less expense. 
It also requires rebuilding partnerships between the 
headquarters and the field, between Federal employees and the 
laboratories and plants, and between the NNSA and Congress and 
DOD.
    In dealing with these priorities, I expect to draw upon 
recent experience as the first commander of Air Force Global 
Strike Command. When we established the Command in 2009, our 
task was to establish clear lines of authority, responsibility, 
and accountability. We also placed strong emphasis on 
strengthening the safety and security culture while, at the 
same time, streamlining processes and eliminating needlessly 
burdensome non-value-added activities that stood in the way of 
our people and their incentive to innovate. Finally, we 
continually stress that everyone in the organization, 
regardless of job, rank, seniority, was a valued member of the 
team, and that her or his work was absolutely essential to 
success. If confirmed, this is the leadership approach I intend 
to bring to the NNSA.
    I, again, thank you for inviting me to appear before this 
committee today. It truly is an honor. I stand ready to answer 
any questions you may have now and, if confirmed, to address 
any questions you or your terrific staffs may have in the 
future in a very open and candid way.
    Chairman Levin. Thank you so much, General Klotz.
    Mr. Lettre.

 STATEMENT OF MR. MARCEL J. LETTRE II, TO BE PRINCIPAL DEPUTY 
          UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE

    Mr. Lettre. Chairman Levin, Senator Inhofe, members of the 
committee, I'm honored to be with you here this morning as you 
consider my nomination as Principal Deputy Under Secretary of 
Defense for Intelligence.
    Let me introduce to the committee, Mr. Chairman, my guests 
here with me today, to my left and just behind me: my wife, 
Simmons; my daughters, McKinley, age 11, and Amelia, age 9; my 
mother, Mary Lettre, a proud Army wife and teacher; and my 
father, Marcel Lettre, Senior, who is a retired Army colonel, 
airborne ranger, and Vietnam combat veteran, who, I might add, 
successfully and quite proudly avoided a Pentagon tour during 
his 26 years of service. Any opportunities I've had in life are 
because of this family, this team, and I'm grateful you all 
could be here today.
    I also want to thank several tireless public servants who 
have served as mentors and colleagues over many years: Senator 
Harry Reid, Congresswoman Jane Harman, Deputy Secretary Ash 
Carter, former Under Secretary Michele Flournoy, and Under 
Secretary Jim Miller, and my good friend, Assistant Secretary 
of Defense Liz King.
    I'm also pleased that a number of other friends and 
colleagues are in attendance today. Those that I saw include 
Lieutenant Colonel Ethan Griffin, Dave Muhlbaum, Jason 
Forrwester, Stuart Irvin, and some others that I probably 
didn't get a chance to say hello to. Thank you for being here.
    I'm deeply humbled that President Obama has nominated me as 
Principal Deputy Under Secretary of Defense for Intelligence. 
Since 2009, I've been honored and privileged to serve three 
Secretaries of Defense: Chuck Hagel, Leon Panetta, and Bob 
Gates. If confirmed, I'll be proud to serve Secretary of 
Defense Chuck Hagel and Under Secretary Mike Vickers as they 
lead the Department of Defense and the Defense Intelligence 
Community through a critical period of challenge and 
opportunity. But, most of all, I'll be proud to serve and 
support the men and women of the U.S. military. Their interests 
will be my interests, if confirmed.
    Mr. Chairman, I believe we're facing the most consequential 
period for defense intelligence in perhaps a generation. The 
choices we make now as we draw down from 10 years of war and 
reshape our enterprise to meet new strategic and budgetary 
challenges will set us on a multi-decade trajectory for our 
defense intelligence capabilities. If confirmed, I will keep in 
mind three major priorities as I support Secretary Hagel, Under 
Secretary Vickers, and the Defense Intelligence Community:
    First, to provide the best intelligence possible to those 
who are fighting in current operations, operations we're in 
today and possible contingencies in the near future. The 
Defense Intelligence Community must maintain its focus on the 
needs of our deployed men and women, conducting an incredible 
range of intelligence-driven, precision operations, and the 
needs of the President and the senior national security team, 
for the best intelligence possible to address today's threats.
    Second, to prepare for a challenging period of budget 
uncertainty. This will require us to become leaner, to trim 
overhead, reduce duplication, and shed underperforming 
activities. It will not be painless or pretty, but we must make 
tough choices and become stronger and better even as we become 
smaller.
    Third, to push vigorously to innovate and invest. Even as 
resources fall, we must sharpen the impressive capabilities 
that keep America's superior technological edge and protect its 
advantages over its adversaries. That means strengthening 
capabilities in counterterrorism, cyber security, and 
countering weapons of mass destruction. We must ensure we 
maintain global reach and global understanding. These 
priorities will require a close partnership and strong and 
regular dialogue between defense intelligence leaders and this 
committee. I look forward to contributing to that partnership.
    We must implement our priorities in defense intelligence 
while also being ever vigilant about the need for vigorous 
protection of the principles, rights, and freedoms from which 
America gains its strength. Those of us privileged to serve in 
these positions of responsibility recognize that we owe our 
citizens and our families our full focus and our full energy on 
keeping the Nation safe and secure.
    Thank you.
    Chairman Levin. Thank you very much, Mr. Lettre.
    Mr. Ohlson.

  STATEMENT OF MR. KEVIN A. OHLSON, TO BE A JUDGE OF THE U.S. 
            COURT OF APPEALS FOR THE ARMED SERVICES

    Mr. Ohlson. Mr. Chairman, it's a great privilege to appear 
before this committee as a nominee to be a judge on the U.S. 
Court of Appeals for the Armed Forces. I would like to thank 
you and the members of this committee for considering me for 
this important post.
    I would also like to thank the President for nominating me 
for this position. If confirmed, I will do my level best to 
vindicate his trust.
    Of course, I would like to thank my wife, Carolyn, who is 
here today, behind me to my left, as well as our two children, 
Matthew and Katherine, who are in school. I would not be 
sitting here today if it were not for their enduring love and 
support.
    Mr. Chairman, if I am confirmed for a position on the Court 
of Appeals for the Armed Forces, I pledge to this committee 
that I will bring to bear on every case I handle all of my 
military and criminal justice experiences so that I may be the 
best judge that I can possibly be. For example, I will be 
mindful of when I stood shoulder-to-shoulder with some of the 
finest people I've ever known and rappelled out of helicopters, 
parachuted out of airplanes, deployed to four foreign 
countries, and served in the Persian Gulf War. Those 
experiences taught me indispensable lessons about the men, 
women, mission, and ethos of our exceptional Armed Forces.
    Further, I will be mindful of my service as a trial counsel 
prosecuting cases at Fort Bragg, as the Article 32 
investigating officer in a case involving a serial rapist and 
murderer who was ultimately sentenced to death, as a Federal 
prosecutor for many years here in the Nation's capital, and now 
as the head of the office that punishes prosecutors who have 
engaged in professional misconduct. These experiences have 
taught me about the vital importance of the strength, fairness, 
and integrity of our criminal justice system.
    Finally, if I am confirmed, I will be mindful of the men 
and women in uniform who so proudly and effectively serve our 
Nation today, such as my nephew, who just returned from a tour 
of duty as an infantryman in Afghanistan, as well as the many 
commanders I have known over the years. These experiences have 
taught me of the importance of striking the right balance 
between the need to ensure good order and discipline and the 
need to protect the rights of individual members of our Armed 
Forces.
    In sum, if I am confirmed, I pledge that I will be mindful 
of all these factors and that I will approach every case with 
an open mind, guided solely by the facts and the law and by the 
interests of our U.S. Armed Forces and all those who serve in 
it.
    Thank you for your consideration.
    Chairman Levin. Thank you all.
    We'll have a 7-minute first round of questions. We have 
timers in front of us in this room.
    Let me ask you, Mr. Lettre, we've had the adequacy of our 
security clearance procedures raised, with tragic impact, in 
recent days. In your new position, if you're confirmed, there's 
going to be some real responsibility for DOD facility 
clearances in your job.
    The National Defense Authorization Act (NDAA) for Fiscal 
Year 2014 that we approved in committee a few months ago 
requires the Secretary of Defense and the Director of National 
Intelligence to reform the personnel security clearance 
investigation, adjudication, and transfer processes to improve 
security as well as to reduce cost. I'm wondering whether you 
are familiar with the language in that bill.
    Mr. Lettre. Senator, I'm generally familiar with it. I 
haven't had a chance to study it or give it deep thought yet.
    Chairman Levin. All right. Do you have any views on the 
need for improved security process reform, greater cost 
transparency in this area?
    Mr. Lettre. I do, Senator. There have been a number of 
episodes over the last several years that have pointed to a 
need to take a hard look at our security clearance and security 
processes. Just this week, as we all know, 12 families are 
grieving and dealing with a tragedy that occurred at the 
Washington Navy Yard. Secretary Hagel directed, yesterday, that 
Deputy Secretary Carter would undertake an immediate review of 
both facility security, as well as security clearances, as well 
as standing up an independent panel to look at those issues. I 
strongly support both of those.
    It would be my view, going into the position, if confirmed, 
Senator, that I would want to take a strong role in doing what 
I can to be of support to those reviews while also taking into 
account the direction of the committee to look at those issues 
as part of the bill. I look forward to doing so.
    Chairman Levin. All right. Obviously, we thought it was 
extremely important, even before these recent events, so I 
think you can take that as a challenge and a charge.
    Secretary Wright, you have served in the military for 35 
years before retiring as a major general in the Pennsylvania 
National Guard. I think you're familiar with the major effort 
which we're making to end sexual assault and sexual harassment, 
and the provisions that are in our bill as they come to the 
floor, and the added emphasis that we are placing on ending 
this scourge. One of the issues that we did not agree upon was 
the question of transferring responsibility to a prosecutor 
outside of the chain of command to determine whether or not 
allegations of sexual assault should be prosecuted. I'm 
wondering whether you have a view on the role of commanders in 
changing the military culture in which sexual assaults take 
place, and also whether we should remove those commanders from 
the decisionmaking process as to whether or not to charge 
someone with an offense that would go to a general court-
martial.
    Ms. Wright. Sir, I do have an opinion. Clearly, the 
Department has an opinion, and that is to hold the commander--
--
    Chairman Levin. You give us your personal opinion, though.
    Ms. Wright. My opinion is that the command needs to be 
clearly involved, and the disposition of the sexual assault 
needs to stay within the command, which is exactly the same 
position as the Department's.
    Chairman Levin. What is the reason for your opinion?
    Ms. Wright. Sir, I have served as a commander, and I have 
also served in the position here as an Acting, and I have 
worked diligently to expunge sexual assault from our 
organization. Secretary Hagel has also made this is a top 
priority of the Department.
    The reason I believe it should stay in the command is 
because the command does have the responsibility for the 
discipline, the accountability, and the management of their 
command. Saying that, the commanders also have to be held 
accountable for what happens in their command.
    Secretary Hagel has put a multitude of changes in place 
that will increase the commanders' accountability. The one 
thing he has done is, he has raised the disposition authority 
to a colonel. The second thing he has done is, when a sexual 
assault occurs and a victim comes forward--it's not a high 
probability that a victim comes to the commander. The victim 
normally comes to the sexual assault coordinator, the medic, 
the chaplain, and then they take it from there, based upon the 
restricted or unrestricted report.
    But, another thing that he has done is, if there is a 
sexual assault filing within a command, the first general 
officer in that chain of command must be aware or told that 
this is happening and to have oversight of what is going on 
with the case.
    Chairman Levin. Thank you.
    Now, Ms. James, you mentioned that you have been on the 
advisory board for the DACOWITS. I'm wondering if you, there in 
that position, but also as an Assistant Secretary of Defense 
for Reserve Affairs in the 1990s, whether you have a view on 
that question, about whether we should take away from the chain 
of command that decision as to whether or not to prosecute a 
sexual assault offense or other offenses.
    Ms. James. I do have a view, Senator. My personal view is 
identical to that of Secretary Wright. I concur that it is 
extremely important to keep that authority with the commanders, 
but equally important to hold those commanders accountable for 
the climate and what goes on in their units. Command is an 
honor and a privilege in this country; it's not an entitlement. 
Those who do not live up to our values simply need to be 
removed from that command.
    It has also been my observation, just as someone who has 
watched the military for my entire professional life--and part 
of it, at times, as a civilian--is that the military has been 
extraordinarily effective through the chain of command when 
there is persistent and constant focus, unrelenting focus. I 
give you the examples of racial integration and drug use in the 
Vietnam era. When ``Don't Ask, Don't Tell'' was repealed, and 
the implementation of the new rules and expectations, the 
military chain of command was very, very effective. I think the 
reason why it hasn't been as effective on this particular 
matter over the decades is because that consistency of focus 
has been lacking.
    I believe it was Chairman Dempsey who said, before this 
committee, some months ago at a hearing, that--and I'm 
paraphrasing--``We took our eye off the ball.'' I think that 
means we lost focus. There were wars, there were other things 
that captured that focus.
    If I am fortunate enough to actually get this job and 
become the Secretary of the Air Force, that will be a top job 
that I will carry forward, is to keep that focus strong, as it 
will be for the person who would succeed me. It has to be kept 
up, and I do believe the chain of command has to be 
responsible.
    Chairman Levin. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I would ask General Klotz and Mr. Ohlson--you've heard the 
comments by Secretary Wright and Ms. James concerning the 
integrity of the role of the commander. Would either of you 
want to comment on that, or do you agree with them?
    Mr. Klotz. Senator, I left the military 2\1/2\ years ago, 
so my comments are based on those experiences. I think the 
fundamental responsibility of the commander is to maintain good 
order and discipline of her or his organization and enforcement 
of the UCMJ. Investigating and prosecuting those people who 
have violated or are suspected of having violated the UCMJ is 
one of the paramount duties that any commander must have.
    Senator Inhofe. Yes, all right, that's a good answer.
    Mr. Ohlson. Senator Inhofe, if I were to be confirmed, 
serving in my role as a judge, it would be my responsibility to 
apply whatever law all of you come up with. I'm not sure it 
would be appropriate for me to opine on any specific 
legislative changes.
    Senator Inhofe. That may be true. I have a bias in this 
area, in having, many, many years ago, served as a court 
reporter in that system. It never occurred to me, during that 
time, that the commander would not be supreme in that process.
    Secretary Wright, first of all, I appreciate the time you 
spent with our staff and had a chance to visit. When I first 
saw the Department of Defense sexual assault survey, I had a 
lot of things going through my mind. Those of us who are in 
elective office are pretty familiar with what surveys are, and 
the integrity of surveys. I looked at that, and when I saw the 
26,000 unwanted sexual contacts--the turnout or those who are 
responding to a survey, are those the ones that actually 
represent the thinking of the entire population? Do you have 
any comments to make about that? Because if we're going to do 
surveys, let's do a better one than we already have behind us. 
What do you think?
    Ms. Wright. First, I will tell you that we do have 
qualified statisticians that work in the personnel and 
readiness field that do the surveys. But, saying that, there 
are a couple of other things that I would like the committee to 
know.
    One, I think our force is about surveyed out. There are at 
least 400 surveys, I know, that go out to the field, and I'm 
convinced that there are some that the Department does that 
don't go through----
    Senator Inhofe. Do you know what the response ratio was of 
this particular survey?
    You're saying something I was not aware of, now.
    Ms. Wright. No, sir, not off the top of my head. But, I 
will get back to you what the response was.
    Senator Inhofe. Yes, do that.
    [The information referred to follows:]

    The 2012 Workplace and Gender Relations Survey of Active Duty 
Members (2012 WGRA) was sent to 108,478 Department of Defense (DOD) 
Active Duty members and received completed surveys from 22,792 eligible 
respondents, for an overall weighted response rate of 24 percent. In 
contrast, the 2010 WGRA was sent to 85,614 DOD Active Duty members and 
received completed surveys from 24,029 eligible respondents, for a 
weighted response rate of 31 percent. This does represent a decline in 
response rates since 2010. While similar declines in response rates 
have been seen across military surveys, The Defense Manpower Data 
Center continues to obtain some of the highest response rates for 
surveys on military populations. Despite this, the response rate 
obtained in the 2012 WGRA does not diminish the statistical accuracy of 
the survey estimates.

    Ms. Wright. Also, I know the surveys go out in an email 
force portion. So, if you get three surveys that day, and two 
of them don't apply to you, and one does, and you have a few 
minutes, you're going to do the one that applies to you.
    Senator Inhofe. Okay, that's a good answer. That did answer 
the question that I have. I think that does kind of single out 
individuals.
    One of the statements you had made--and this is a quote--
is, ``The Department's policy is to treat all military 
personnel equally and to make the same benefits available to 
all qualified members.'' That was a quote by you. The 
memorandum then goes on to authorize the administrative absence 
of servicemembers, offering a different opportunity for same-
sex marriage as other marriage. Is that an inconsistency, or 
where are you on that?
    Ms. Wright. I believe, sir, you're referring to the 4 
September memo where I talk about, if you're going to get 
married, and you are not able to get married with a 100-mile 
radius, that the command can grant you an administrative 
absence to a place where you can get married, and that would 
apply to both same-sex couples and heterosexual couples.
    Senator Inhofe. Yes.
    Ms. Wright. I will be very honest with you. The times that 
it would apply to heterosexual couples will be probably few and 
far between. But, in a meeting that the Secretary called--he 
was away, he revisited the policy when he was away, he called 
me, and the next day that he got back, he called a meeting with 
the Service Chiefs and with the Service Secretaries and with 
the Chairman, and we discussed this, and we discussed this at 
great lengths. He believes--they believe--we developed that 
policy then, and they believe that the policy is fair and 
equitable to all. Granted that there is a slimmer possibility 
for a heterosexual couple to run up against this issue.
    Senator Inhofe. That is the perception.
    Ms. Wright. Yes.
    Senator Inhofe. I don't want to spend any more time on that 
issue, because we're running out of time, here.
    Ms. James, I think we should give serious consideration to 
having a Senate Strategic Choices and Management Review 
hearing. I think a lot came from that, where we're trying to 
get a hearing from the Chiefs as to how the sequestration's 
going to directly affect them. We might give some consideration 
to have a similar hearing here in the Senate.
    Ms. James, General Welsh made this statement yesterday, 
saying, ``The damage will be insidious, but, should we face a 
high-end threat in the future, the impact of not modernizing 
will be blatant and deadly. While failing to achieve national 
objectives in the next counterinsurgency fight would be 
distressing, losing a major full-spectrum fight would be 
catastrophic.''
    Are you sure you want to get into this? There are some real 
problems. Having a background and knowing a little bit about 
flying airplanes, back on April 9, when they made the decision 
to ground--approximately 16 squadrons, is it your agreement 
with some I have talked to and who have testified here that the 
cost savings of that 2- or 3-month period were not--it's going 
to cost a lot more than the savings that they achieve from 
that. Have you given any thought to that?
    Ms. James. My understanding, Senator, is, digging out from 
under the readiness hole, if you will, actually will cost us 
more money than had we funded it the way it was originally 
intended to be funded from the beginning. Yes, I agree with 
that, and I would like to concur with the spirit of what you're 
saying. I, too, am troubled by the readiness profile. Of 
course, hard decisions had to be made. As some of you have 
already pointed out, combat fighter squadrons were not able to 
fly for a period of time, depot maintenance was deferred, there 
were many civilians furloughed. It's very troubling that those 
actions had to be taken, and I am hopeful, still, though it is 
sometimes discouraging to wake up and read your morning 
newspaper, that there can be some agreement reached so that the 
entirety of our Government can get beyond sequestration and 
that we can get to some figure for spending, albeit a lesser 
figure--we know we all have to be much more affordable for our 
taxpayers--but to know what that figure will be so that we can 
execute and we can plan to a single number and have a certain 
degree of certainty. That is my hope.
    Senator Inhofe. I appreciate it.
    My time has expired, but I'm going to send a question for 
the record, General Klotz, concerning the B-61 and the 
difference in treatment between the House position and our 
position. I'm inclined to agree more with the House. I have 
some questions I'd like to send for the record to both of you 
who we didn't get a chance to visit.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    I want to thank all of the nominees, not only for their 
willingness to serve, but their already distinguished public 
service. Thank you all very much.
    Secretary Wright, one of the areas that is directly under 
your responsibility is the cost of all the personnel programs, 
and not just pay and wages, but also, particularly, TRICARE and 
other benefits. Every year, in the last few years, the 
Secretary has sent over some suggestions, along with the 
Chairman of the Joint Chiefs. Sometimes we follow them, many 
times we don't. But, the question still looms out there: As 
this costs increase as a percentage of your budget going 
forward, it gets larger and larger each year, cutting back, in 
terms of operations, training, maintenance, investment in new 
technologies. Just a very general question is, one, I presume 
this is going to be one of your highest priorities, to try to 
deal with these issues of accelerating costs, and, two, how do 
you propose to go about setting up a constructive dialogue with 
all the stakeholders--Active, retires, beneficiaries, the 
people that have to train, plan, and deploy the forces? Can you 
comment on those two points?
    Ms. Wright. In reference to TRICARE, sir?
    Senator Reed. TRICARE and other issues under the personnel 
costs. The generic sort of issue of the personnel costs.
    Ms. Wright. Oftentimes--and we have done this already three 
times since I have been in the acting role--the Veteran Service 
Organizations (VSO) and the Military Service Organizations 
(MSO)--and our family council that we have--is a venue that I 
use to get the word out about what we're doing in the 
Department. I have met with the VSOs three times since I have 
been the acting, and that is a very good venue to relate the 
changes that we're doing and also the issues that we're facing, 
and to hear them out about their issues and the things that we 
want the Department to do.
    On the family side of the house, we have a Military Family 
Readiness Council that is made up of the Services, but it's 
also made up of spouses and members of all components. I use 
that as another venue.
    We also use public affairs--George Little and I work 
diligently together to get our message out, no matter what the 
issue is within personnel and readiness, of the change of 
policy.
    Senator Reed. Can I just follow up on a quick point? I 
appreciate those efforts, and they're designed to communicate 
what you propose to do. But, there's another level here, and 
that is trying to build a consensus upon changes that have to 
be at least accepted or tolerated by many of the different 
groups. Are you in the active consensus-building or simply 
saying, ``This is what we're proposing?''
    Ms. Wright. Sir, sometimes we have to direct things to 
happen.
    Senator Reed. I understand that.
    Ms. Wright. But, it's much easier to direct something to 
happen if you have explained why you're doing it and you take 
their opinions and see if you can mitigate some of the concerns 
that they have as you are writing the policy. That is what we 
do.
    The meetings with all of these people are not me being 
dictatorial in nature and flowing one way. I am gathering their 
opinion, because they're really the boots on the ground out in 
the population that we serve.
    Senator Reed. Thank you very much, Madam Secretary.
    Mr. Lettre, you will be Principal Deputy to the Under 
Secretary of Defense for Intelligence, and obviously this issue 
of contracting, with respect to intelligence services, has come 
up, with huge implications--Mr. Snowden, and now the tragedy at 
the Washington Navy Yard. The first question is that the 
concept of contractors is the purest--is that they do things in 
the military are not essentially military. A lot of the 
intelligence efforts are, really, military. Is there any 
thought that you've given and advice you're prepared to give 
with respect to redefining what roles would be appropriate for 
intelligence contractors versus what roles will be necessary to 
be filled by direct employees--military, civilian, or the 
Government?
    Mr. Lettre. Senator, the role of contractors, particularly 
in the Intelligence Community, but also across the Department, 
is something that the leadership team needs to put a lot of 
focus on in the next couple of years as we go through budget 
uncertainty and the budget trajectory that we're looking at.
    Within the Intelligence Community, there are jobs performed 
by Active Duty military, jobs by career civilians, and then by 
contractors. I do think there are instances where contractors 
bring in quite unique capabilities, from a technology and an 
innovation perspective, that make it hard to see us being able 
to get that capability through any other way than through a 
contractor, because of the rapid-changing nature of technology.
    I think in the Intelligence Community, one of the guiding 
principles we need to look at all of the use of contractors 
through as we work our way through this in the next year or 2 
is exactly that: How can we ensure that anything that can only 
be uniquely done through a nongovernmental sector or expertise 
is really driving our use of contractors? As we make tough 
choices about how to deal with the budget challenges of the 
next couple of years, we keep that principle in mind.
    Senator Reed. Let me follow up. These incidents have also 
raised the issue of how we screen these contractors, to speak 
generally. It raises a question, one, who is responsible for 
what? Is it purely the responsibility of the Department of 
Defense to ensure the reliability and the stability of the 
contractor, or are the companies that employ these individuals 
responsible, contractually or otherwise? It would seem to me 
that both cases should apply, but it also seems to me, now, 
there's some confusion as to who really is the ultimate 
validator of the reliability, competence, and dependability of 
these individuals who have access to secrets and to facilities. 
Can you comment very briefly?
    Mr. Lettre. Senator, I do think it's time to take another 
look at the accountability of contractors and the executives 
who lead contracting firms in the private sector with respect 
to the responsibilities they may have on security clearances. 
Secretary Hagel's announcement, yesterday, that he's directing 
Deputy Secretary Carter to take a look at security clearances, 
as well as establishing an independent panel to look at this 
issue, I think provides a good opportunity to do that.
    Senator Reed. Thank you all very much, and, again, thank 
you for your service to the Nation, and good luck.
    Chairman Levin. Thank you very much, Senator Reed.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman. Thank you, ladies 
and gentlemen.
    Ms. James, we had a great visit last week. Thank you for 
that. At that meeting, I briefly mentioned my concerns 
regarding the concept and implementation of the Air Force's 
Total Force Plan (TFP). As I mentioned to Secretary Donley and 
General Welsh during the Air Force posture hearing earlier this 
year, I believe that some elements of the TFP were shortsighted 
and may adversely impact our intra-theater airlift capability 
at a time when our Services are evolving toward more rotational 
deployment model. As ranking member of the Airland 
Subcommittee, I am very pleased that your answers to our 
committee's advance policy questions acknowledge that the 
decisions made last year regarding the TFP were made without 
adequate consultation of the various stakeholders who are now 
feeling the negative impacts of the plan's implementation. Ms. 
James, this is a very important answer, and I appreciate your 
acknowledging that fact.
    Let me just ask you, there will be a national commission on 
the structure of the Air Force. It's scheduled to report back 
to Congress with findings and recommendations next year. Would 
the Air Force, under your leadership, consider modifications to 
the TFP based on the commission's findings and recommendations?
    Ms. James. Senator, if I may begin by saying, based on my 
time, both on the committee staff on the House side as well as 
when I served as the Assistant Secretary of Defense for Reserve 
Affairs, I'm a deep, deep believer in the value of the total 
force. I would just like to say that up front.
    I would also like to say that, in some ways, it's painful 
to me to see some of the frictions that have been happening 
between the air components. Back in the 1990s, I used to refer 
to the air components, with respect to their utilization of the 
Guard and Reserve, as the superstars of the Guard and Reserve, 
and I still think that's so. But, clearly, there are fences to 
be mended, and we need to do some work here.
    I absolutely welcome the work of the commission. I'm 
fortunate that I consider myself to be a good friend of some of 
the commissioners. I know General McCarthy, I know Ms. Conaton. 
I know several of them. I think we'll have a good working 
relationship. I look forward to hearing their ideas. Again, if 
I am confirmed into this job, I would like to think a hallmark 
of what I will bring to the table will be very close 
consultations, bringing in all of the components, talking to 
adjutants generals, talking to Members of Congress, and trying 
to come up with a go-forward proposal which will basically meet 
the country's needs as well as the States' needs for the very 
real desirability of being able to respond when disaster 
strikes.
    With that said, I'm equally sure that we will have to take 
reductions. We've talked about this budget situation that we're 
facing, so it won't be easy. But, we need everybody's input and 
best efforts, and that will certainly be what I will work 
toward.
    Senator Wicker. Thank you. Should the committee recommend 
modifications, you would consider those recommendations?
    Ms. James. I'm completely openminded and will welcome their 
report.
    Senator Wicker. Thank you. If confirmed, will you commit to 
working with our committee to ensure that future Air Force 
manning and force-structure decisions are fully considered 
within the broader national strategic context?
    Ms. James. I do give you that commitment.
    Senator Wicker. Thank you. As we discussed last week, I'm 
very proud of all of our installations in Mississippi. I 
particularly would call to your attention Keesler Air Force 
Base, which won the Air Force Installation Excellence Award, 
the leading Air Force Base in the entire Air Force.
    I'm committed to ensuring that Keesler, which is a training 
base, maintain a flying mission. If confirmed, will you work 
with me to ensure that Keesler maintains an enduring flying 
mission?
    Ms. James. What I know of Keesler is all topnotch, and I 
look forward to visiting Keesler--with you, I hope.
    Senator Wicker. Very soon, perhaps.
    Ms. James. You said perhaps that we should do that, could 
do that, so I welcome that opportunity.
    Senator Wicker. Thank you very much.
    Now, let me shift, then, Ms. James, to unmanned aerial 
systems (UAS), such as the very successful RQ-4 Global Hawk. 
These UASs are providing critical support to deployed forces 
around the world. Combatant commanders continue to stress the 
importance of intelligence, surveillance, and reconnaissance 
(ISR), and have identified ISR shortfalls in key areas around 
the world. Many, if not all, members of the committee view UAVs 
as ``the'' cost-effective future of airborne ISR.
    In Mississippi, we not only have the Global Hawk, but we 
have the Orion UAS. Orion just completed its first test flight 
last month at China Lake. It is designed to stay aloft for up 
to 5 days while carrying a 1,000-pound payload of sensors. If 
confirmed, I urge you and your team to be briefed on what I 
consider to be a very promising program in the Air Force.
    What is your assessment of the potential for long-endurance 
unmanned systems to help meet combatant commander ISR 
requirements? If confirmed, would you provide to this 
committee, say, within 30 days, a briefing and written report 
of the Air Force's investment strategy to provide unmanned 
long-endurance airborne ISR capability to our combatant 
commanders?
    Ms. James. First, Senator, I would say yes, I certainly 
will get back to you in 30 days after confirmation, if I am 
confirmed, to give you my best assessment that I can after that 
30-day period, even if it may be incomplete still at that 
juncture.
    Senator Wicker. Thank you.
    Ms. James. I do recall our discussion about Orion, and I 
would very much welcome learning more about that in a briefing.
    As to the overall issue of unmanned systems versus manned 
systems, I have some familiarity with that. It's an area that I 
need to look into and study more deeply to understand the costs 
and benefits of both. My initial take is that we certainly need 
both in our force. We need a complement of both, and we need to 
ensure that we're looking at costs and capability and 
survivability. Because my understanding is, it's somewhat 
different, depending on which system you're looking at.
    But, it's an important area, and I believe in it, and I 
will look into it further.
    Senator Wicker. Thank you. Let me just ask, real briefly, 
about the common support helicopter to replace our aging UH-1N 
fleet. As reflected in our committee-reported text, the 2014 
DOD authorization bill, this committee believes that the UH-1N 
is critical to the nuclear security and continuity-of-
government missions, and can be achieved by leveraging existing 
DOD production capacity.
    I would commend to you, Ms. James, and to you, General 
Klotz, the American Eurocopter Global Strike aircraft. If 
confirmed, will you provide to this committee and my office, 
within 30 days, a briefing and written answers to the questions 
of, why is the Air Force not funding a UH-1N replacement 
program, when the Air Force states that protection of the U.S. 
nuclear enterprise is a top priority? How will the Air Force 
and the NNSA ensure that resource allocations accurately 
reflect our stated commitment to protect the U.S. nuclear 
enterprise?
    Ms. James?
    Ms. James. Yes, I will absolutely come back to you in 30 
days and give you my best answer to that, Senator.
    Senator Wicker. Thank you.
    General Klotz?
    Mr. Klotz. Senator, I will, as well.
    Chairman Levin. Okay?
    Senator Wicker. Thank you very much.
    Thanks for your indulgence, Mr. Chairman.
    Chairman Levin. Thank you, Senator Wicker.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    One of the distressing things that has occurred in the 
honest disagreement and debate around how we work on the 
problem of sexual assault in the military is a narrative that 
has developed, unfortunately, that somehow this is about whose 
side you're taking, the victims or the commanders. I want to 
try to clarify that that is not an accurate description of 
discussions in the policy changes that are being debated. 
Rather, this is an honest disagreement over which reforms will 
better protect the victims and which reforms will result in 
more prosecutions.
    I hope I have time to get back to some of the additional 
work we want to do. You all are aware of the body of work that 
Senator Gillibrand and I, together, have accomplished in this 
bill, along with the help of a lot of others, including the 
Chairman, that are going to remove commanders from in any way 
having authority to change the outcome of a military trial. 
You're aware of the fact that all victims, like the Air Force 
has role-modeled, are going to have their own lawyers. I won't 
go through all the changes we've made.
    The Chairman and I continue to work on ways that we can 
hold the commanders accountable. If I get time to get back to 
that, I would like you to give, now or later, your specific 
recommendations on how we can hold commanders accountable for 
this important problem that they have to get after.
    Also Article 32 and reforms that I think need to occur 
within Article 32. It became a weird amalgamation of a 
preliminary hearing, discovery, trial-run trial, it's evolved 
of this just over the last decade, and would like your input on 
that.
    But, I really want to focus now on the two problems that 
we're all trying to get at, and that's retaliation and 
reporting. I know you all are aware that all of our allies that 
have removed commanders entirely from this decision have not 
seen an increase in reporting. None of them have. We know that 
is not the key, just doing that, in terms of increasing 
reporting. We know that they do not have to report to the 
commanders now, and they certainly won't over the reforms that 
are embedded in the NDAA that is going to be debated on the 
floor.
    But, retaliation is one I would like you to address. Any of 
you--and if you have had experience as a JAG, and, Secretary 
Wright, as you've had experience as a commander--I'm trying to 
assess, if a victim is going back into a unit, when is the 
likelihood of retaliation higher, when a JAG lawyer a half a 
continent away has signed off on pursuing charges or when the 
commander of that unit has signed off, in terms of pursuing 
charges? Which would create an environment that would be more 
likely for there to be retaliation?
    Secretary Wright?
    Ms. Wright. Ma'am, honestly, at first blush, I couldn't 
tell you. What I can tell you is, the victim can ask for--if 
the victim files an unrestricted report, and it is public--even 
with a restricted report--they can ask for a transfer out of 
that particular unit. That is one right that we have for the 
victim. We even now if the alleged perpetrator is in that unit, 
we can transfer the alleged perpetrator out of the unit.
    Retaliation is real. I agree with you 100 percent. Maybe 
not in every case, but if it's in one case, that's one too 
many. I believe what we need to work at, and I think that our 
commanders, from Secretary Hagel on down, is working at, is 
what I call ``social courage''. I put it into the aspect that, 
if you're in combat with someone, and your battle buddy in 
combat is doing something that will get you killed, you 
immediately will say something to that person, no matter what. 
You won't think about it twice.
    If you are in a social situation with that same person, and 
that person is either drinking too much or not acting up to the 
values that our system wants you to act up to, and looks like 
something may go sour, if you will, with someone else, that 
social courage is there to say to that person, ``Let's go home. 
You're drinking too much, you're being foolish.''
    I think that our commanders, our people, our lowest grades 
of enlisted, need to learn that social courage to hold that 
them, themselves, responsible and also hold their battle buddy 
responsible.
    It's prosecution, and it's also holding people responsible 
for their actions.
    Senator McCaskill. Ms. James, I know that there have been a 
number of changes already enacted in the Air Force--is there 
anything about a lawyer making a decision to go forward that 
would provide an extra level of protection, as opposed to a 
commander deciding to go forward?
    Ms. James. I, personally, don't think so. I, if I may, 
wanted to offer up the core, I think, of your question is, we 
have to instill more confidence in members of the force, that 
if they are victimized, we want them to come forward.
    Senator McCaskill. Correct.
    Ms. James. We want them to report. All reports are good, 
but unrestricted reports are better, because then followup can 
occur.
    Based on my DACOWITS experience--and DACOWITS does 
installation visits, we do focus groups with men and women--the 
sampling of people that I have talked to, some of whom have 
been victims, others of whom know those who have been victims--
they tell me they don't come forward for a number of reasons. 
They feel personally ashamed, they feel that they may be blamed 
for what has happened. They do fear retaliation, sometimes from 
chain of command, sometimes from their buddies in the unit, and 
they just simply don't want people to know, and they're not 
sure that anything will be done, or at least not enough will be 
done.
    I agree with Secretary Wright, to have the option of either 
transferring the alleged perpetrator or transferring the 
victim, to be able to go either way with that, I think, is a 
good thing.
    I'd like to offer a specific couple of ideas. These are 
ideas that the DACOWITS has recommended. It goes to the issue 
of accountability of commanders. I believe, from every job I 
have ever held, either in government or in the private sector, 
that aligning a person's incentives and looking at what they 
are measured on, getting all of that into alignment, is 
terribly, terribly important.
    The DACOWITS has recommended that it be put into the 
performance reviews of commanders how well or poorly they are 
doing in the area of the climate within their unit, and how 
well or poorly they are doing with respect to being a leader 
against sexual harassment. To the degree that each and every 
commander understands that his or her career is on the line to 
do well in this regard, people pay attention to what they're 
measured on. That is one idea.
    Senator McCaskill. I thank you for that. I know my time is 
up, but I would look to all of you, and especially, Mr. Lettre, 
with your experiences as doing Article 32s and--did you say 
that you were one of the investigators--did I hear that in your 
introductory remarks? Or was that you, Mr. Ohlson?
    Mr. Ohlson. Actually, that was me, Senator.
    Senator McCaskill. Oh, well, you can't do this, then, 
because of the position you're nominated to. Thank goodness, 
though, we have civilian courts of appeals now that will be the 
sole arbiter of whether or not due process has been achieved 
within the UCMJ, instead of having these weird situation where 
judges could overturn jury verdicts. I'm glad that that is 
definitely going to get fixed.
    But, any specific ideas you have about Article 32 and how 
we can make some reforms there.
    I would mention, as I close, Mr. Chairman, that we have 
given victims the choice of expressing that they would prefer 
the charges to be done in the civilian system. Once again, 
giving the victim more power, empowering the victims so they do 
not feel like that they are being swept up in a system that 
nothing's going to happen and they have no control over. That 
also is part of our reform that I think is essential.
    I thank you all and look forward to your specific 
suggestions.
    Thank you, Mr. Chairman.
    Chairman Levin. Two quick comments on that.
    One is, for the first time, retaliation is a crime, if we 
can get our bill passed, because, in our bill, we would make 
retaliation a crime, for the first time.
    Second, that suggestion of DACOWITS, about the performance 
review containing a review of a commander who's being reviewed 
as to the climate in that command, is now, by a number of us, 
being looked at for inclusion in our bill, when it gets to the 
floor, as an amendment. There's a number of us who have looked 
at that recommendation and feel that it's a very important 
recommendation, and are working on language so that it can be 
incorporated, hopefully, in our bill when we get to the floor.
    Senator Blunt is next.
    Thank you, Senator McCaskill.
    Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    Ms. James, I didn't get a chance to visit with you before 
today, and I'm assuming that's probably my fault, but I look 
forward to talking to you more as this process goes on. I just 
have a couple of questions, basically, their future asset and 
equipment questions. We have Whiteman Air Force Base in the 
State that Senator McCaskill and I represent, and clearly 
important in our overall strategy.
    The only new aircraft, I believe, out there is the long-
range stealth bomber that's being considered right now. 
Obviously, that's an important part of our projection, maybe an 
important platform that other equipment can look to, to be 
built around. But, are you concerned that, in the decade in 
front of us, that's the only plane we're talking about right 
now as a new addition to the Air Force?
    Ms. James. Senator Blunt, there's really three top 
modernization programs that are very important to the Air 
Force. One is the F-35, the other is the new tanker, and the 
third, as you said, is the new long-range bomber. Of the three, 
the new long-range bomber is in the earliest phases of 
development.
    Senator Blunt. Right. That's what I meant, the one that is 
the newest thing we're launching. There's nothing that follows 
that in the line of talking about new--well, go ahead.
    Ms. James. As far as I know, those are the three top 
priorities. Based on what I know about those three top 
priorities, it seems right to me--based on the strategy that we 
are pursuing, based on the thrust of the rebalance toward the 
Pacific. You need longer range, we need more bomber forces. 
It's important for the triad, and so forth. These seem like the 
correct programs, to me, at this point.
    Senator Blunt. Now, as those are being developed, there's 
some discussion, of course, of taking some of the workhorse 
equipment, like the A-10s, and just totally eliminating entire 
groups of planes as we look at the money available. I think 
when General Welch was up here, before the House Armed Services 
Committee, he said that the Air Force may be forced to 
eliminate entire fleets that have less relevance in contested 
airspace, including the A-10. This would be one of the planes--
I don't know, until we have something that fully meets that 
need, we can make that decision. That's a decision that 
eventually would come up to you. Do you have anything to say 
about that?
    Ms. James. I do. I am not privy to any of the predecisional 
work, at this point, but, as you point out, I, too, have read 
accounts that everything essentially is on the table. I don't 
know specifically about that, but I read it in my morning 
newspaper, as well, that this was commented upon yesterday by 
the chief. My understanding is that these are part of the hard 
decisions that are being looked at as options, but that there 
are no final decisions.
    I do agree with you, though; if we're going to eliminate an 
entire aircraft which is currently serving a particular 
mission, we'd better be sure that we have something else that 
will serve that mission in the interim until one of the 
futuristic programs comes online.
    These are all areas that I will need to delve into much 
more deeply if I'm confirmed, but I think this points out some 
of the very difficult challenges that we're going to have to 
work through together of how to make ends meet with the budget 
figures that we may be faced with.
    Senator Blunt. All right. It's going to be a big job, and 
these questions will get to your desk, assuming you're at that 
desk. I believe you will be. But, thanks for those answers.
    General Klotz, we talked yesterday about the NNSA facility 
in Kansas City. You mentioned it again today. I think one of 
the things you're going to have to deal with there is, What do 
you do with the property that you're leaving that goes back to 
World War II airplane production? Do you want to get some 
thoughts on how that move is going to occur, when it'll be 
finished, and then what happens to the property that you leave 
behind?
    Mr. Klotz. Yes, Senator. The move into the new facility is 
currently underway and will very soon be completed, and it is 
an exciting facility that will not only reduce the overall 
footprint, or the amount of space, it takes to do the work 
that's been done at the Kansas City plant, but will do it much 
more efficiently.
    You're right, there will be a facility that we will be 
vacating, along with the General Services Administration (GSA), 
in the same location on Bannister Road. The Kansas City plant 
has been a part of the nuclear weapons enterprise for decades. 
The NNSA and the people who work in the Kansas City plant 
consider themselves part of the social fabric of that part of 
the State of Missouri. As I committed to you when we met, we 
will be good stewards in making sure that facility is turned 
over as quickly as possible so that it can be reused by the 
citizens who live in that particular part of the State.
    Senator Blunt. Yes. Not to comment on, but just for me to 
say, I think, at some point, those two pieces of property that 
really are part of the same complex are going to, in order to 
allow something to happen there, probably one of the two of you 
needs to become the lead agency and the controlling agency. I 
think that'll be an early decision that you may be asked to 
make, whether you want to be the lead agency or whether you 
want the GSA to be.
    I don't believe you had a chance to comment on Senator 
Reed's question about contractors. One, are there a lot of 
contractors? Two, after these recent incidents that we've seen 
with contractors--Edward Snowden and now the contractor at the 
Navy Yard--what are your thoughts about the necessity of 
contractors and how to better deal with this overall issue?
    Mr. Klotz. Senator, the NNSA relies extensively on 
contractors, and has for a number of years. There are roughly 
1,800 Federal employees in the NNSA, but there are nearly 
30,000 contractor employees that work in the National Security 
Laboratories, in the plants, and on various other facilities, 
doing on it a Government-owned contractor-operated basis. They 
are indispensable, integral members of the team, in terms of 
delivering the product and the capabilities that the NNSA has 
to have.
    The security, particularly personal security and cyber 
security, is an extraordinarily serious concern with respect to 
the NNSA, given the very sensitive nature of the information it 
handles, as well as the intellectual material that it also must 
deal with.
    I have said, on several occasions, that security and safety 
are going to be my top priorities, if confirmed, and we need to 
take a very close look, given the events of the past few 
months, whether it's a failure in terms of security of 
individuals or failures in terms of securing facilities, to 
ensure that we have the right organization and the right tools 
to protect against any breaches of security.
    Senator Blunt. Okay, thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Blunt.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I want to thank all of you for being here and for your 
commitment to public service. I know that your individual 
commitment to public service means your families, also. I want 
to certainly welcome the families that are behind you today.
    I want to follow it up on Senator McCaskill's question on 
sexual assault, Ms. James. In your response to questions from 
the committee regarding sexual assault, you stated that, 
``Senior military and civilian leaders, beginning with the 
Secretary and Air staff, must focus on promoting an environment 
that does not tolerate sexual assault.'' Obviously. We 
appreciate that. But, you are aware that, twice in the past 6 
months, uniformed military officials, whose job it was to 
prevent sexual assault, were arrested for committing sexual 
assault, themselves, including the head of the Air Force's 
program. The screening process in this area certainly needs to 
be discussed.
    If confirmed, how do you intend to ensure that the best-
qualified and appropriately screened individuals are placed in 
these positions and billets, not only at the top, but within 
all levels of the Department?
    Ms. James. With respect to the people who are serving in 
those very critical positions for the area of sexual assault, I 
will look forward to reviewing what the current criteria is for 
selection and training and so forth. I have not delved into 
that particular aspect deeply at this juncture.
    Senator Hagan. Obviously, it's a critical position.
    Let me talk about pivoting to the Pacific, as far as the 
military. In the fall of 2011, the administration outlined a 
long-term strategy for expanding our role in the Asia-Pacific 
region. There's been some speculation that this pivot would 
require a shift of some military assets from the east to the 
west coast.
    Ms. James, from your understanding of the President's 
initiatives, do you believe that the Air Force will need to 
physically shift assets to support the strategy? Would such a 
shift perhaps leave us less ready to respond to contingencies 
outside of the Asia-Pacific region, or even in parts of the 
United States?
    Ms. James. On that latter point, I certainly hope not, and 
it would be part of my job to ensure that that was not the 
case. That is, in terms of leaving other parts of the world or 
other parts of the country at greater risk. I certainly would 
not wish to see that happen, and I would be an advocate to not 
let that happen.
    In terms of the overall strategy of rebalance to the 
Pacific--of course, we're military witnesses, we talk about a 
great deal about the military programs, but it really is 
comprehensive--it's economic, it's diplomatic, it's military, 
it's all of that, that our Government would be focused on for 
that rebalance. I think that's a recognition of the importance 
of the Pacific, economically and from a threat perspective, and 
so forth.
    We'll have to be looking at all of that, and I certainly 
will do that, on behalf of the Air Force, if confirmed.
    Senator Hagan. This committee's markup of the NDAA for 
Fiscal Year 2014 prohibits authorization of a future Base 
Realignment and Closure round until, at the very least, DOD 
completes and submits to Congress a formal review of the 
overseas military facilities structure. The committee is 
signaling, and I firmly believe, that the Department does need 
to prioritize domestic military bases over foreign bases, 
especially when you look at the fiscally constrained 
environment that we're in.
    Once again, Ms. James, and the last question for you, what 
are your thoughts on this issue? Do you agree that we should 
continue to take a hard look at our overseas military 
facilities before considering looking at similar actions back 
home?
    Ms. James. I do agree we need to take a very strong look at 
the overseas bases, and I believe that that review is ongoing. 
I'll have to look into the due date of that review, but that is 
happening.
    With respect to the overall base-closure issue, I will say 
that I have been briefed and I do believe that there is excess 
capacity in all of the Military Services. I believe the Air 
Force has put that excess capacity at about 20 to 24 percent.
    Senator Hagan. Does that include overseas, or are you 
talking now just specifically on U.S. soil?
    Ms. James. I believe that is the entirety, U.S. Air Force 
bases worldwide. As you point out, the overseas piece is 
important, and that part is getting a very big scrub at this 
point.
    But, I do believe it's part and parcel of our being able to 
reduce overhead functions, consolidate facilities, free up 
money so that we can plow that money back into other resources 
over time. I do think it is something that we need, and we need 
to reduce infrastructure as best as possible across the board.
    Senator Hagan. Tell me that number one more time, you said 
24 percent?
    Ms. James. I believe it's between 20 and 24 percent excess 
capacity that the Air Force has talked about.
    Senator Hagan. Oh.
    Secretary Wright, the Department of Defense and the defense 
industry are facing challenges seeking new graduates with 
advanced degrees in scientific and technical fields to help 
develop the complex military systems. Some of these challenges 
include a lack of interest in traditional defense sectors by 
our new graduates: Federal hiring issues, budget pressure, the 
length that typical defense programs take to execute, and then, 
obviously, the competition for talent with other, not only 
government agencies, but the corporate sector, too. If 
confirmed, what would you do to ensure that the Department of 
Defense has access to the best and the brightest future 
scientific and technical talent? How would you measure the 
effectiveness of these efforts?
    Ms. Wright. Ma'am, part of the issue that we're dealing 
right now is, with the budgetary constraints that we're under, 
we are under a hiring freeze. There is, in the Department, the 
ability to waive some of those very important positions, and 
some of them would fall in the categories that you just talked 
about.
    It is our responsibility to screen the applicants, and it's 
our responsibility to kind of market the positions that we have 
to make sure that we get the best applicants to apply.
    The Science, Technology, Engineering, and Math (STEM) 
program starts from the bottom up and works from the bottom up 
for people to realize how important science, technology, 
engineering, and math is. That's a program that I think is 
worth its weight in gold as we continue to move people through 
the system, through graduate degrees and applications in to the 
Department of Defense.
    Senator Hagan. I think we can all understand that we're not 
doing enough in the STEM fields in our public education schools 
around the country now, and I think we have to have a greater 
emphasis, especially beginning in middle school. It seems we 
lose many of the young girls in middle school.
    But, this is a critical problem, and, I think, from 
corporate America to the national security issues, that the 
individuals that we must have in DOD, that we really take a 
very keen and strong interest to be sure that we are competing 
worldwide for this talent. I know how important it is, from the 
national security aspect, that we do get the best and the 
brightest, and that we keep them. I think that's an issue that 
I know you'll be giving it a lot of study and action.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank all of you for being here, and your 
families, for your service to our country, and for the 
important positions you're about to take on.
    Ms. James, you and I had a chance to meet the other day and 
talk in person, and first of all, I want to reiterate what I 
told you, which is, I look forward to working with you on the 
basing of the KC-46A tanker at Pease Air Force Base. We're very 
proud of the work done by our 157th Refueling Unit. I look 
forward to being a partner with you on that. As we mentioned in 
our meeting, Senator Shaheen and I would love to have you up to 
New Hampshire to see that unit and also to see what is a great 
association between an Active Duty and a Guard unit, which I 
think, is a model for the country. Thank you, and I look 
forward to working with you on that.
    I wanted to also follow up in the discussion we had--I know 
that Senator Blunt had asked you about the A-10s, and you said 
that there had not yet been a decision on A-10s. One of the 
concerns that I have is, I was given a slide, I believe, that 
came from Air Combat Command, that actually says that the A-10 
fleet would be divested by fiscal year 2015, on this slide. Why 
that makes me concerned is that there already has been a 
decision made on the A-10. As you and I talked about in our 
meeting, the A-10 has a very important function, in terms of 
close air support. In fact, most recently in July, 60 soldiers 
were saved in Afghanistan because of the important close air 
support provided by the A-10.
    I'm going to submit this article for the record. I hope 
that you will look at that.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Ayotte. I will ask you again: To your knowledge, 
has there been any decision made to divest the A-10? Because 
I'm not sure why these types of slides would be put out there 
by Air Combat Command if this decision hadn't already been 
made.
    Ms. James. Senator, first of all, I, too, look forward to 
visiting Pease and working with you on the base, the KC-46, and 
all of the other important issues that you and I talked about.
    To the best of my knowledge, there is no decision on 
divesting A-10s or anything else, for that matter, because all 
of this is predecisional. However, it is my belief that 
planners and people who are looking at budget and possible 
scenarios are looking at options, and everything, including 
complete divestitures of aircraft fleet, these things are 
possibilities, they are on the table.
    Senator Ayotte. One of the issues that you and I talked 
about which I think is very important--I'm certainly a strong 
supporter of the F-35 and our fifth-generation fighter, but, 
until the F-35 is operational, we can't be giving up our 
capacity, particularly important capacity that protects our 
troops. What I would ask for you, as a nominee of this 
important position, will you agree to come and speak to 
Congress and brief us when the decisions are made, if there is 
a decision made to divest from the A-10 or any other airframe, 
so that we can weigh in on this important decision? Then we'll 
have the opportunity, of course, to ask you questions and for 
us to have a very important dialogue about this on all of the 
airframes.
    Ms. James. Yes, I will.
    Senator Ayotte. Thank you, I appreciate that.
    I appreciated the meeting that we had, Mr. Klotz, in terms 
of the important positions that you've held for our country. 
One of the issues that is very important to me is the 
modernization of our nuclear deterrent. Certainly as part of 
the New Strategic Arms Reduction Treaty (START), many of the 
individuals--I wasn't here at the time--who agreed to endorse 
that treaty were very concerned about modernizing our nuclear 
deterrent.
    In your position, when you're confirmed, will you be an 
advocate for making sure that we modernize our nuclear 
deterrent? How important do you believe that is, to make sure 
that we have a strong triad?
    Mr. Klotz. Senator, I think it's absolutely essential that 
we modernize and extend the life and maintain the nuclear 
weapons that are currently in our arsenal for a triad of 
forces. We currently have the oldest stockpile, in terms of 
average age, that we've ever had as a Nation, and there needs 
to be scientific work and an awful lot of touch labor to ensure 
that those nuclear weapons that we retain are still fully safe, 
fully secure, and fully effective.
    I will be an ardent champion for getting the resources, 
whether that's funding or people or facilities in our 
laboratories and in our plants, in order to carry out that most 
important mission, and hopefully will be persuasive with the 
administration and with the committees of Congress.
    Senator Ayotte. I appreciate that very much.
    I also wanted to follow up, based on your prior experience 
in the important positions that you've held in the past that 
are so critical to our nuclear deterrent, you and I talked 
about this--there's been some discussion of the potential for 
further reducing our nuclear deterrent. Certainly, the 
President has given some speeches that suggest that that may be 
a possibility. Would you recommend that we do that 
unilaterally?
    Mr. Klotz. Senator, my view has always been, throughout my 
military career, that the best way to pursue any sort of arms 
control agreement is part of a negotiated treaty.
    Senator Ayotte. A treaty that would come before Congress so 
that Congress could weigh in on this important issue?
    Mr. Klotz. Yes, Senator, a treaty that would come before 
the Senate for consent to ratification.
    Senator Ayotte. Absolutely. I appreciate that, and I think 
that's important, that we weigh in on it, but also that, if 
there's going to be any further efforts to reduce our nuclear 
arsenal, that certainly it not be done unilaterally, 
particularly with what we see happening right now around the 
world with some of the individuals and rogue actors who are 
also seeking to have their own nuclear capability. I appreciate 
that. You're taking on a very important position for the 
Nation. Thank you for your prior experience in this area, as 
well.
    I want to thank all of you for being here.
    Let me just reiterate, Mr. Lettre, that I very much look 
forward to the important work that I know that you are going to 
do in reviewing the security clearances. All of us on this 
committee are very troubled by what appears to be some 
significant lapses, in terms of a contractor getting access who 
had a fairly significant history of misconduct and other flags 
that worry us, in terms of the security clearances of our 
contractors and the safety of our personnel. I look forward to 
working with you on that, and this is a very important review 
that I know that you'll be a big part of. Thank you.
    Mr. Lettre. Thank you, Senator. I look forward to working 
with the committee on that.
    Senator Ayotte. Great.
    Thank you all.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to give my sympathies, and that of everyone in 
Indiana, to the families and victims of those killed and 
injured at the Navy Yard. We owe a debt of gratitude to these 
patriots for their work on behalf of the United States and for 
sacrificing their lives in the service of our country.
    To all the members of our panel, we want to thank you for 
the sacrifice you have made, and to your families for 
everything you have done for this Nation.
    Secretary Wright, I thank you for taking the time for 
visiting with me earlier in this week to discuss the importance 
identifying servicemembers and veterans in need of mental 
health care. I have introduced the Jacob Saxton Military 
Suicide Prevention Act, and it seeks to improve identification 
of servicemembers at risk, and creates a career-long mental 
health history to help professionals provide the best possible 
care.
    I just want to make sure of your commitment to work forward 
on this legislation, and to really dig deep in this area to 
make sure that we can end this scourge.
    Ms. Wright. Sir, you have my full commitment. It is not 
only the Department's job, but to work hand-in-glove with 
Congress and, truly, everyone. It's everyone's responsibility 
to work towards solving the suicide problem.
    Senator Donnelly. You've heard questions from my colleagues 
about the A-10s and about the Reserve Force. In fiscal year 
2013, the Air Force submitted a budget in which 17 percent of 
the cuts came from the Active component, despite the fact that 
67 percent of Air Force personnel is the Active component. We 
went through, in Indiana, as many of my colleagues have, a 
situation where we were providing services at 28 cents on the 
dollar, and were notified that there was going to be an effort 
to try to remove all of those services from what we were doing.
    What we're looking for is, for want of a better way of 
putting it, a fair shake, that when a judgment is made, it is 
made on the numbers, it is made on who can provide the best 
service at the lowest cost. Obviously, I'm talking in reference 
to the Air Guard and others. I'm wondering what efforts you 
have undertaken and what you will do to ensure that DOD finds a 
balance between the Active Duty and the Air Guard.
    Ms. Wright. Sir, we are in on all the meetings that discuss 
the force structure as it relates to the budget and the balance 
and the mission prosecution that we have to do. Not only my 
office, but also the office that falls within my purview as in 
Reserve Affairs.
    One of the other things that the Secretary has done is, he 
meets with the Council of Governors that represents the 
National Guard and, in turn, represents the Reserve 
components--the title 10 Reserve components within their State, 
and he has assured them that we will be transparent in what we 
decide to do, and he has personally met with them, and the 
Deputy has met with them, for the balance of the Reserve 
components, as it applies to the force structure and how we 
structure both the Reserve and the Active.
    Senator Donnelly. Ms. James, I'd like to hear your thoughts 
on this, as well.
    Ms. James. I certainly concur with what Ms. Wright just 
explained. I hope I, too, will get to meet with the Council of 
Governors. I think this kind of crosstalk is important, work 
with Members of Congress, and, very importantly, pull in the 
Guard, the Reserve, along with the Active, to include some of 
the adjutants general, so that we can put together a go-forward 
plan, which makes sense, both from the standpoint of the 
national mission that the Air Force has as well as responding 
when disaster strikes here at home. Both are very important.
    Senator Donnelly. I can tell you that, before, when this 
happened, it basically was just dropped in our laps and told 
us, ``This is what's going to happen,'' and, ``Good luck with 
it.'' Obviously, we were not willing to sit still for that kind 
of thing.
    What I would like to also see, and I know my other 
colleagues have asked you this, as well, so you're going to 
have an active travel schedule, but we'd love to have you both 
come to Indiana and see the quality of the installations that 
we have so when you make these judgments, that you're not just 
making it from a piece of paper, but you're making it from 
actual knowledge of what you're looking at.
    Ms. Wright. I would love to, sir.
    Ms. James. Me, too.
    Senator Donnelly. Thank you very much.
    Mr.--and I apologize, I wasn't here at the start--
``LaTray''?
    Mr. Lettre. ``Leh'-truh,'' Senator.
    Senator Donnelly. ``Leh'-truh,'' okay. I didn't know how 
French you are----[Laughter.]
    Senator Donnelly. Something of very significant concern to 
me is counterfeit microelectronics. A lot of work is done in 
our State, at Crane, on that. But, I think they're a troubling 
problem for the military supply chain. The committee has done a 
very comprehensive investigation of this, but one of the 
difficulties we face is in identifying manufacturing facilities 
or foundries that produce the counterfeit parts and then put 
them into the DOD supply chain. I'm wondering what efforts, 
that you can talk about here, that the Intelligence Community 
has taken to gather information on this, because one of our 
fighter planes is only as good as its worst part that is in the 
plane. I'd be interested in your comments on that.
    Mr. Lettre. Senator, the sourcing of counterfeit 
microelectronic parts and our intelligence assessments on that 
is not something I've had a chance to really dig deeply into. 
If confirmed, I would like to do so. I'm familiar with the 
committee's work on counterfeit parts over the last couple of 
years. It's been a serious contribution to shedding light on 
this important security risk. What I would like to do is 
continue the dialogue with the committee to make sure that we 
are putting the right capabilities to bear within the 
Intelligence Community to address this challenge.
    Senator Donnelly. Okay. Any efforts and emphasis you can 
put on this, I think, is critical to our national security.
    Mr. Klotz, I was wondering what efforts you can talk to us 
about in regards to the partnering, for instance, that's 
undertaken at Crane between the Air Force and the Navy to 
reduce recapitalization costs as it modernizes strategic 
ballistic systems, working to make sure we have a stronger 
nuclear effort. How important do you think that is to be able 
to combine efforts, not only cost-saving, but also possibly 
having a stronger product, a stronger result, at the end of the 
day?
    Mr. Klotz. Senator, I think that all options ought to be on 
the table, particularly as we begin the process of modernizing 
the warheads which are associated with both the Air Force and 
the Navy. I am aware that considerable work is already being 
done under the auspices of the Nuclear Weapons Council, which 
combines the efforts of both the Department of Defense and the 
Department of Energy and between the Air Force and the Navy, 
looking for ways in which they can achieve greater commonality 
and, in the process, perhaps make for more efficient use of our 
facilities and, at the same time, reduce costs of the life 
extension program.
    I think this is an area which is ripe for a lot of work.
    Senator Donnelly. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Just to follow up on the commitment you made, Mr. Lettre, 
to Senator Donnelly on the counterfeit parts. The law, as we 
wrote it, has certain requirements. First of all, it holds the 
contractors responsible for replacing parts. It can't be passed 
along to the Government to pay for those replacements. Second, 
we require that the parts have to be purchased from the 
original manufacturer. We're talking, here, about these 
microelectronic parts, but it applies broadly. You have to buy 
it from the original manufacturer or their certified suppliers 
and representatives or trusted vendors.
    Now, there's an effort being made to weaken this provision. 
It has been, the provision that Senator Donnelly is referring 
to that we wrote into the law. We're going to need you to tell 
us, in the next--within a month after you're confirmed--as to 
whether or not those provisions in our law to address this 
issue are being implemented. As part of your response to 
Senator Donnelly's question for the record, we'd appreciate 
that.
    Mr. Lettre. Yes, Mr. Chairman, I will.
    Chairman Levin. Senator Lee.
    Senator Lee. Thank you very much, Mr. Chairman.
    Thanks, to all of you, for being here today.
    Ms. James, why don't we start with you. Thank you, first of 
all, for stopping by my office earlier this week. I enjoyed our 
visit a great deal.
    I want to follow up on some of the conversations that we 
had. First, let's talk about the F-35 for a minute. I think the 
acquisition of this system, of this aircraft, is really 
important for the Nation's security and for the Air Force. I 
know that I and a lot of other people are looking forward to 
seeing it roll out. It has, of course, been a project that has 
been plagued with a lot of cost overruns and schedule delays. 
These things do happen, especially with a big long-term 
project, a very complex weapon system like this one. But, I'm 
really afraid that it could threaten the program, especially 
during a time like this, where we're dealing with a lot of 
really thorny budgetary issues. Those things tend to make 
everything much worse in this kind of economic climate than 
they might otherwise.
    Can you just give me your assessment of where we are with 
this program, and what you could do, if confirmed, to make sure 
that everything proceeds as smoothly as possible within the 
cost parameters and the timeframes contemplated?
    Ms. James. Senator, this is, of course, one of the top 
three most important modernization programs that the U.S. Air 
Force has today. It's critical that we maintain the air 
superiority and the capability that we have had for the last 50 
years. This particular program is an integral part of all of 
that.
    First of all, one thing I'll do, if confirmed, is, I'll 
continue to advocate for this program, the importance of it, 
and be a spokesman for the fact that the threats out there are 
real and that we need this program to help us counter those 
threats.
    As far as the cost growth, the schedule slips and whatnot, 
I agree with you, it's been a long time, it's an enormously 
expensive program, and we owe the taxpayers our very best.
    What I know so far about recent times with this program is 
that things are trending in the right direction. That is to say 
that the program manager, General Bogdan, has reported that the 
costs are coming down. Can more be done? I hope so. I don't 
know yet. But, it's at least trending in the right direction. 
We're starting to come up on some important, I'll call it, 
``developmental decisions,'' I think, particularly software. 
There's a software decision that will have to be made soon. 
Software is critically important. It can make or break a 
program. Ensuring that that is done correctly is another 
important facet.
    If confirmed, in addition to advocating for this program, I 
will do my best, from my perspective as the Secretary of the 
Air Force, to work with the Under Secretary for Acquisition, 
Technology, and Logistics, to work with the program manager of 
the program, and with the Secretary of Defense, to make sure 
that we give value back to the taxpayer, that we watch those 
costs, that we birddog it every single day, have dialogue with 
industry--that's another important thing that's been happening 
lately--so that industry takes on its fair share of the risk, 
going forward.
    Senator Lee. Thank you. Following up on that, with the F-
35--we talked a little bit the other day about the F-35 basing 
decision; specifically, the record of decision pertaining to 
basing of the F-35 OPS-1. As I mentioned the other day, I was 
disappointed in the multiple delays in the decision. I was 
told, in January, that we would have a decision by March. Then 
I was told, a month or 2 after that, that we would have a 
decision either sometime this summer or, at the latest, I was 
told, by October. Recently, there was some indication that it 
might not happen in October.
    I was encouraged to hear General Welsh state, yesterday, 
that we can still expect a decision sometime this fall. It 
still makes me a little bit nervous. There's still a fair 
amount of wiggle room in that.
    Can you just tell me, as best you understand of the 
situation, what the reason is for the multiple delays and when, 
specifically, you anticipate the record of decision might be 
announced?
    Ms. James. I, too, Senator, believe that it is the fall, so 
that's October-November timeframe, I would say. That's based on 
my best understanding.
    I don't know why there have been so many delays, other 
than, of course, it is a complex decision, there's input from a 
variety of sources, a lot of data has to be reviewed. But, I 
know it's been a frustration, and I hope it won't be too much 
longer.
    Senator Lee. Okay. Thank you. Given your experience both 
within Government and outside of government, this does have all 
kinds of ramifications, especially for the warfighter 
community, as a result of the uncertainty all of this creates. 
I'm also worried about all of the related decisions, the 
military construction actions that have to be taken, all of 
which turn on the record of decision issuing, with regard to 
the basing decision.
    My time's running short. Let's turn to General Klotz. Thank 
you, as well, for coming by my office recently. I enjoyed my 
visit with you, as well, General.
    Congress continues to have some serious concerns with 
regard to cost growth and delays, as well as planning issues, 
at the NNSA. I assume you're familiar with the recent 
Government Accountability Office report that said that the NNSA 
has $16 billion in cost overruns across 10 major projects, and 
that that could result in a combined 38-year backlog. I assume 
you don't intend to be in this job for 38 years. But, a Member 
of Congress should never accuse an agency of doing that, 
because, by some measures, we're more like 1,000 or 1,500 years 
behind what we need to do in Congress. I just want to ask: If 
confirmed, how will you address some of these issues related to 
backlog and cost overrun?
    Mr. Klotz. Senator, I, too, have read a number of different 
reports that have been written over the past 10-12 years that 
have taken to task the NNSA for shortcomings in program 
management, cost estimation, and large capital construction. 
I've been encouraged, as I have been preparing for the 
possibility of being confirmed, to learn that some significant 
steps have been taken in the past year or so, and since 
Secretary Moniz has been confirmed and entered into office as 
the Secretary of Energy, that are designed to enhance the 
internal skills of the NNSA to do cost estimation and program 
management, to include bringing in a lot of people who have had 
experience in the past with large capital construction, say, in 
the Navy or with the Corps of Engineers, into its own 
workforce.
    There have also been efforts to work more closely with the 
Department of Defense, particularly in the area of cost 
estimation, to share best practices and to get an independent 
review of what the NNSA is anticipating will be the case with 
costs and as well as the scope of what the Department of 
Defense expects, in terms of its own requirements and the 
requirements of our military.
    My objective will be to continue this process that has 
begun, to drill down even further into the processes by which 
we do cost estimation, project managing, and capital 
construction, to ensure that all alternatives are laid out and 
carefully vetted, and that we hold both Federal employees and 
contractors responsible and ensure that there are clear lines 
of authority and responsibility for them doing their task.
    Senator Lee. Thank you very much. Thanks, to all of you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lee.
    Senator King.
    Senator King. Thank you, Mr. Chairman.
    I'd like to address a general question to--I guess it would 
be the right side of the panel: Ms. Wright, Ms. James, and Mr. 
Klotz.
    Is the budgetary chaos around here threatening the national 
security of the United States?
    Ms. James?
    Ms. James. I think it's a very, very serious concern. If I 
may echo something I said earlier, it is extremely time-
consuming and unsettling to be executing the way that we are 
executing. We're not making as good a judgments as we otherwise 
could if we had a fixed number to work with and the flexibility 
to implement. That's number one: execution is not what it could 
or should be.
    Then, trying to plan for the future is incredibly difficult 
and enormously time-consuming when you are trying to plan for 
different scenarios.
    To get beyond this point, to come to an agreement for the 
entirety of our Government, which I would hope could lift 
sequestration, give each of our Departments a new number--I'll 
speak for the Air Force; I hope to be able to speak for the Air 
Force--we would like to know what we are really executing for 
and planning for, and have a greater degree of certainty than 
what has been the case.
    Senator King. Ms. Wright?
    Ms. Wright. Yes, sir, I will add to what Ms. James has 
said. Frankly, yesterday, the Service Chiefs testified, and, 
really, what they said was that they all voiced their grave 
concern over the readiness of our force, based upon the 
sequestration, the potential Continuing Resolution (CR), and 
the budget, that we----
    Senator King. Does that make the answer to my question 
``yes''?
    Ms. Wright. Yes, sir, it does. We clearly focus on those 
individuals that we are sending into harm's way. We make sure 
they're trained, we make sure they're the best-equipped, and 
that they have what they need. But, we have a very unready 
force, because of the sequestration that we have just gone 
through, and because of the potential sequestration and the CR 
in 2014.
    Senator King. ``An unready force'' is a term that should 
strike fear into everyone that is listening to us today and 
everyone in this enterprise around here. ``An unready force.''
    Ms. Wright. Yes, sir. Readiness is just not training; 
readiness is equipment modernization, readiness is equipment 
repair, readiness is collective and individual training, 
readiness is personnel risk reduction--the suicides, the family 
programs. That whole ball of readiness is affected because of 
the uncertainty of the budget.
    Senator King. Lack of readiness, lack of training, lack of 
all those things that you just listed, put American lives at 
risk, do they not?
    Ms. Wright. I would agree. Yes, sir.
    Senator King. General Klotz, you've been in this business 
for a long time. Have you ever seen anything like what we're in 
right now?
    Mr. Klotz. No, Senator, I don't believe I have, except 
perhaps for the immediate years after the end of the Vietnam 
war, when there was a significant drawdown; there was a lot of 
pressure.
    I would concur with what my two colleagues said. I also 
think there is an important personal dimension to that; and 
that is, the civilian employees of the Department of Defense, 
who are stalwart patriots and have given, in many cases, their 
entire adult lives to serving our Nation through service as 
civilian employees. To the extent that they were adversely 
affected, both in terms of the number of days they had to take 
furlough, but, more importantly, the hit that they took in 
terms of their morale and sense of importance to the mission, I 
think is something that we ought to bend over backwards never 
to repeat again, and to continuously remind them of the 
extraordinary contribution that they and their families make to 
the Department of Defense and to our national security.
    Senator King. Would you concur that the current chaos 
threatens national security?
    Mr. Klotz. It certainly makes it extraordinarily difficult 
for those people who are responsible for carrying it out to do 
the work that they need to do, whether it's operations and 
maintenance day-to-day on a flight line, or whether it's 
developing the plans and programs that are going to position 
our Services and the NNSA for contributing to the national 
security in the future.
    Senator King. I think, Ms. James, you said something very 
important, and that is, it's not only the number, it's the 
uncertainty; it's the not knowing what the number is. I used to 
be in business. If we know what the rules are, you can manage 
to those rules. If the rules are unclear or change or 
uncertain, that's as much of a problem as whatever the number 
turns out to be.
    Ms. James. Absolutely, Senator. In direct answer to your 
question, I think this current uncertainty and, as you said, 
chaos does threaten our national security, because, again, I 
will say what I believe about the Air Force. We have the best 
air force in the world, and I have complete confidence in them 
that they will step up to the plate and do whatever we ask of 
them. But, in situations where you have not been able to put 
the resources into readiness that otherwise should have been 
put, it means that there's increased risk.
    Senator King. I think what's going on around here is an 
insult to the word ``chaos''. Chaos is too mild a term.
    Ms. Wright, one quick, not really a question, but a 
suggestion. A lot of effort is put into recruiting people into 
the armed services; not as much effort, in my judgment, is put 
into helping them get out. We have a huge problem, in Maine and 
across the country, of veterans who are unable to navigate the 
system, the kind of outplacement counseling, if you will, that 
would be equivalent to the recruiting. I hope you'll pay some 
attention to that. I know that there are programs, but I think 
that's a place where we can improve, because the system is 
complex. A young man or young woman leaves the Service at the 
age of 22 or 23, how to navigate that and the interplay with 
the Veterans Administration, I hope is something you'll pay 
some close attention to.
    Ms. Wright. Sir, may I answer?
    Senator King. Yes, ma'am.
    Ms. Wright. We've worked diligently on it, and I agree with 
you, that is something that we really needed to do. We have 206 
transition sites across the Nation where servicemembers are 
required to go through a Transition Assistance Program. As they 
go through that program, we have married up with the Department 
of Labor and Department of Veterans Affairs (VA), to the point 
where we make the servicemembers fill out--it's mandatory that 
they fill out a financial sheet so we know what their finances 
will be when they transition, we know if they have an 
education, we know if they have a job lined up. If they are in 
that at-risk category of not having those things that would 
create a livelihood, the Veterans Affairs community does a warm 
handoff.
    The example of that is, if they get out at Fort Hood, but 
they're going back to Maine, we do a warm handoff to the 
veterans community that is in Maine, so they can get the 
benefits that they have worked hard for and that they deserve.
    We have started this program, and we are in the process of 
making very positive changes, and have, now, some classes that 
will be effective, 1 October, for them to be involved with, 
should they need to learn how to write a resume, should they 
need to get a job. Again, sir, we're doing it with the 
Department of Labor and VA.
    Senator King. Excellent, thank you very much.
    I know I'm out of time, Mr. Chairman. I'd like to submit a 
question for the record to Mr. Lettre involving better 
coordination between the military intelligence and the rest of 
the Intelligence Community. We're spending $75 billion in 2012 
on intelligence, over $20 billion in the military, over $50 
billion in the rest of the Intelligence Community. I would hope 
that there will be opportunities for working together, 
cooperation, coordination, and maybe saving a little of that 
money.
    I'll submit the question for the record.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator King.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses.
    Ms. James, I share your concern, and that of the other 
witnesses, about the chaos that my friend and colleague from 
Maine just pointed out. It makes it a little harder for me to 
make that argument when the F-35 is now the first trillion-
dollar weapon system in history, a consistent series of cost 
overruns that have made it worse than a disgrace. It's hard for 
me, when a aircraft carrier, the USS Gerald R. Ford, is $2 
billion over the estimated cost, and no end in sight.
    I keep hearing that we have reduced the F-35, and the next 
batch we have will have significant controls. It's still one of 
the great national scandals that we have ever had, as far as 
the expenditure of taxpayers' dollars are concerned.
    I hope that you will stay on top of these cost overruns. 
They're throughout the Services, and I can tell you, my 
constituents, when they hear about the fact that the F-35 has 
consistently, over many years, exceeded any cost estimate that 
was ever begun, it's a little hard for me to get the kind of 
support and concern that the Senator from Maine and I share. It 
is still not under control.
    I'm sure you know, we still have not had an audit of the 
Department of Defense. Yet, time after time, we mandate it here 
in our Defense authorizations bills, and yet, that audit is 
never able to be completed. The American people at least 
deserve an audit of what the U.S. military is doing.
    Now, I want to say, one of your major tasks, as has 
probably already been mentioned in the hearing--I'm sorry I had 
to bounce back and forth--is the whole issue of sexual 
assaults. Can this committee have confidence that this is one 
of your highest priorities and that you can come to this 
committee and present to all of us a plan and a policy that 
will put this issue on a sharp decline and lead to a renewed 
confidence in the American people that young women who join the 
U.S. Air Force will have confidence that they will not be 
subject to a sexual assault?
    Ms. James. This will be one of my top priorities. I intend 
to work on it very, very hard, and I absolutely welcome the 
opportunity for that.
    Senator McCain. Got any ideas?
    Ms. James. One I put forth, and the Chairman says that you 
all are actively considering it, and that is to hold commanders 
more accountable, to include in their performance assessments a 
measure of the climate within their unit and how well they're 
doing. Because, sir, being a commander, it's not an 
entitlement, it's an honor and a privilege; and if they're not 
living up to the measure, they need to go. That is an idea that 
the DACOWITS has put forth, and I'm a member of that DACOWITS, 
so I offered that up as one suggestion.
    Senator McCain. Thank you. There was a time in the military 
where we had severe racial problems, and we embarked on a very 
long and exhaustive period of indoctrination of the men and 
women who were serving in the military. Not only that, that if 
there was racism exhibited, the punishment was swift and sure. 
That has to be part of any program that you will propose in 
order to cure this terrible situation which dishonors all of 
us.
    Ms. James. I absolutely agree with you.
    Senator McCain. Secretary Wright, in 2010, then-Defense 
Secretary Robert Gates said the Pentagon needed to cut staff 
sizes. He made this part of his efficiency initiatives. That 
was August 9, 2010. In 2010, the Joint Staff was 1,286 people. 
That was in 2010. Now we have 4,244 in 2012, a 230-percent 
increase. Now Secretary Hagel, I understand, is ordering a 20-
percent cut in uniform and civilian personnel, officers on 
military command staffs. Now, where's the credibility, here, 
Secretary Wright?
    Ms. Wright. Sir, I will tell you that Secretary Hagel was 
very serious about cutting 20 percent of his force.
    Senator McCain. What's your plan?
    Ms. Wright. What is my personal plan for personnel and 
readiness?
    Senator McCain. What will be your plan--not your personal 
plan--what will be the plan that will be implemented by the 
Department of Defense to achieve the 20-percent cut that 
Secretary Hagel is advocating?
    Ms. Wright. Each one in the Department has the 
responsibility to turn in to the Deputy Secretary, Secretary 
Carter, an understanding and specific methods of where we are 
cutting. The cut comes from dollars, so we have a dollar 
account, it will be cut 20 percent, and we will match full-time 
equivalents, we will match military to that cut, by name, of 
positions that we will cut that will equal 20 percent. In our 
other items, in our travel account, in our other accounts----
    Senator McCain. What would be the time target for when this 
20-percent cut would be completed?
    Ms. Wright. Sir, I have to give Secretary Carter, by the 
end of the month, this 20-percent cut. I believe the 20-percent 
cut will go into effect 2015 to 2019.
    Senator McCain. We can plan on this taking until 2019 to 
enact a 20-percent cut in a increase that is a 230-percent 
increase between 2010 and 2012?
    Ms. Wright. Sir, I would like to get back to you on the 
specific timeline. I don't want to say something that is 
incorrect, so I will make sure----
    Senator McCain. You're waiting until 2019 before completing 
a 20-percent cut. That is totally unsatisfactory, Madam 
Secretary. What I would like to hear from you is a plan and a 
date certain for when this plan would be executed. If there's 
skepticism on the part of members of this committee, it goes 
back to 2010, when the Secretary of Defense said that there 
would be a 20-percent cut; in fact, we have had a dramatic 
increase. The Joint Staff is just one small example. I can show 
you--U.S. Africa Command, 15-percent increase; U.S. Central 
Command, 19-percent increase; the Office of the Secretary of 
Defense, 9.5. Not a single decrease has taken place in any of 
the major commands. One of the great charades, of course, was 
when the Joint Forces Command in Norfolk was closed; they just 
shifted everybody over to another command. That wasn't 
reduction in staffs, that was a movement in staffs.
    I would appreciate it if you would submit to this committee 
a plan that we can count on that doesn't take until 2019 to 
implement.
    Ms. Wright. Yes, sir, I understand.
    [The information referred to follows:]

    The Secretary of Defense recently directed a 20 percent reduction 
in funding for certain headquarters (HQ) activities (Office of the 
Secretary of Defense, Joint Staff, Service Secretariats, and military 
staffs, and most 3/4-star commands). This HQ reduction is to be taken 
in addition to civilian reductions already reflected in the fiscal year 
2014 President's budget. This 20 percent HQ reduction will be 
implemented beginning in fiscal year 2015 and completed by fiscal year 
2019; it will be reflected in the Department's submission to the fiscal 
year 2015 President's budget.

    Senator McCain. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Thanks to all of the nominees, for your commitment to 
service.
    Ms. James, I have a question for you. A lot of us are very 
concerned about what, in our opinion, is political correctness 
run amuck on steroids, quashing legitimate exercise and 
expression of religion in the military. Things like: not 
quashing active proselytizing, but telling somebody they can't 
have a Bible on their desk; that's a documented case. Telling a 
Christian chaplain he can't end a prayer, ``In Jesus' name'': 
that's a documented case.
    Do you think these sort of issues are a problem? If so, 
what would you do about it?
    Ms. James. Senator, actually, Senator Lee talked to me 
about this, as well.
    Senator Vitter. I apologize. I wasn't here.
    Ms. James. No, no, I mean in the office call.
    Senator Vitter. Yes.
    Ms. James. I've heard about this in the last few days. 
Here's what I know. I have actually read the policy of the 
Department of Defense, and I know what that policy says. It 
says that the open ability to worship, there shall be freedom 
of all religions, as long as within good order and discipline. 
I know that the chaplains, the whole point that they put forth 
is that there shall be dignity and respect for everyone in the 
force.
    He mentioned the same point that you mentioned--I'm not 
familiar with those cases. Of course, it's a question of--you 
have a policy, the policy seems good, to me, but then you have 
some people who don't follow the policy. These individual 
cases, we'll have to look into.
    Senator Vitter. To take my two examples, let's say they're 
hypotheticals, not specific cases. Do you think those actions 
should be barred in the military?
    Ms. James. Having a Bible on your desk? That doesn't seem 
like it should be barred, to me, no.
    Senator Vitter. A Christian chaplain ending a prayer, ``In 
Christ's name''?
    Ms. James. It does not seem bad, to me, and if you'll allow 
me to consult with the Chaplaincy Corps to find out if there is 
some reason I'm not thinking about--but, no, it certainly does 
not trouble me.
    Senator Vitter. Okay. We're going to give you about 42 
specific examples as a followup, and I'd really urge you to 
look into these, because many of us, a majority on this 
committee, according to a vote we had recently, think this is a 
real issue. Thank you.
    Mr. Klotz, I just have a couple of questions for you. I 
appreciate your experience with Global Strike Command, and I 
think that's very valuable. I am concerned that DOD may be 
weighing some major realignment and the possible restructuring 
of smaller commands, like Global Strike. Have you seen anything 
to indicate that current or future threats would not require 
the benefits of a strong Global Strike Command?
    Mr. Klotz. Senator, I have to admit a fair degree of bias 
on this issue, as one of the individuals who helped stand up 
that command, and had the great privilege and honor of being 
the first commander. The reason we stood up the command in the 
first place was, at the end of the Cold War, we had divested 
responsibility for the Air Force's nuclear delivery systems 
between two different commands, commands which had an 
extraordinary workload and were not able to provide dedicated, 
focused attention to the nuclear enterprise. As a result of 
that, we lost focus.
    As I indicated earlier, we're going to have nuclear weapons 
for a very long time. They must be safe, secure, and effective, 
and it requires focused, dedicated leadership to ensuring that 
is being done. That is the role of Air Force Global Strike 
Command.
    Senator Vitter. Great, thank you.
    Also, as part of the discussions about the New START 
treaty, the President made a very specific commitment to 
modernize or replace our strategic triad, and a specific dollar 
commitment. Unfortunately, that dollar commitment has not come 
close to being met, where he, in his proposals, is at least a 
third short. Is that a problem for our nuclear structure?
    Mr. Klotz. If confirmed, Senator, my role will be to be the 
principal advocate for taking those steps that are necessary to 
ensure that the stockpile that we have is, as I said, safe, 
secure, and effective, and that we're taking all the steps, in 
terms of modernizing and extending the life of the nuclear 
weapons that we currently have.
    I will certainly be a champion for every dollar, every 
person, every capability with a facility to make that happen, 
and hopefully, as I said earlier, will be persuasive with other 
agencies of the administration, as well as with committees of 
Congress, in making that case.
    Senator Vitter. Great. Again, just for the record, I want 
to underscore--this was a clear commitment made as part of the 
New START treaty passage through the Senate discussions, and it 
just hasn't been kept. There are no big surprises. Everybody 
who was part of that discussion knew the budget climate. That 
isn't something that came up in the last 6 months; everybody 
knew it was a tough budget climate. But, the commitment was 
made for these dollars for modernization, which is essential to 
keep the nuclear arms we do retain safe and effective as a 
deterrent. We're 34 percent short of that. That really, really 
concerns me. I urge you to help rectify that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Vitter.
    On one of the questions which Senator Vitter raised about 
the allegation that somebody was not allowed to have a Bible on 
their desk, we've tried to get that information, and it's 
important that it be found so that it can be corrected if it's 
accurate. Ms. James, as part of your commitment to Senator 
Vitter, I hope that, on that one, in particular, you would see 
if you can identify the event and see what action was taken to 
correct it, because we've had difficulty confirming it. That 
doesn't mean it didn't happen; our staff has been unable to get 
that done.
    In terms of the reference to, in a prayer, I think, 
depending on where a prayer is made--if it's made to a general 
audience, it could be a different responsibility on a chaplain 
than if it's made to an audience of his own religion, for 
instance. But, this is a very sensitive area, because we want 
to protect freedom of religion for chaplains and for our 
troops, but we also want to protect the freedom of religion for 
people who are listening to chaplains.
    Ms. James. Right.
    Chairman Levin. It's a very serious subject which has been 
raised, and it's deserving of all of our attentions. It's 
gotten a lot of attention from some of us. Hopefully you'll 
look into the issue that Senator Vitter has raised in his--I 
think he said there'll be--what?--40 examples or 42 examples. 
If you'll get back to the full committee on what you find in 
that regard, we would appreciate it.
    Ms. James. I absolutely will, Senator.
    Senator Vitter, if you have a specific example, please, 
give it to me, and I will ask the Air Force, as well, for 
information.
    With respect to the other point, Senator, I totally agree 
with you that something that may or may not be troubling to me, 
personally, may be to others, and the idea of dignity and 
respect for all religions, to include those who have no 
religion at all, it's all equally important. I agree with you 
very much.
    Chairman Levin. Thank you.
    [The information referred to follows:]

    While I am unfamiliar with the specific cases you have cited, to my 
knowledge there is no Air Force Instruction or policy prohibiting 
military members from displaying a Bible on their desk. Additionally, 
for Federal employees, the U.S. Equal Opportunity Commission Compliance 
Manual explicitly allows for the display of religious texts for use 
during breaks. By itself, this act would not be considered religious 
harassment and would not create an impermissible or hostile work 
environment. With regard to public prayer, I do not have a problem with 
chaplains ending prayer's with ``in Jesus' name'' and I understand 
chaplains are trained to respect others while leading prayer. If 
confirmed, I will work with the Chaplain Corps regarding these issues 
to ensure all Air Force members are abiding by and are afforded freedom 
of religion under all applicable laws, regulations, and policies.

    Chairman Levin. Now, you've been asked about force 
structure of the Air Force and the problem which occurred here 
when there was just a proposal that was dropped on us and the 
rest of the country on the restructuring and on force structure 
changes. We've been hearing the Air Force from time to time, or 
at least members, say that this was a ``messaging problem,'' 
and that a better rollout strategy would have avoided the 
problems that they had in presenting or selling their 
proposals.
    Now, this was not a problem of messaging, it was a problem 
with the substance of the Air Force decision in addition to the 
problem with the process, the decisionmaking process, where 
most of the stakeholders are just left out of the 
decisionmaking process.
    You've indicated that you're going to take steps to restore 
confidence within Congress about the quality of Air Force 
decisions and decisionmaking process. I just want to add my 
voice to that issue, because it had a huge effect, I think, on 
almost all of our States, the way it was done and the substance 
of what was done.
    Now, there's a national commission on the structure of the 
Air Force. A report is due in February 2014. Would you let us 
know, as soon as you're confirmed, which we hope will be prompt 
for you and all of our nominees today, whether or not, in your 
judgment, that date is going to be met? I'm not asking for you 
now; I'm saying, after you're confirmed, if you would let us 
know that.
    Do you have a question, Senator Vitter? Senator King?
    Secretary Wright, just a question on the Integrated 
Disability Evaluation System (IDES) and the transition of 
wounded warriors. We, in our wounded warrior legislation, 
really took some major steps to integrate the DOD and the VA 
disability systems. The processing time under the integrated 
program was established in order to reduce the processing time, 
but also to get the right standard applied, which would be the 
more liberal standard from the perspective of the veteran, in 
our judgment. That was the VA standard. We wanted that to be 
uniform between DOD and the VA.
    There were some additional encouraging reports about 
processing time, but now our servicemembers and our veterans 
are mired in long VA disability rating and case disposition 
wait times, and the VA's portion of the system now appears to 
be overloaded.
    Have you gotten into this, as Acting Secretary? What are 
you going to do to ensure that the collaboration between DOD 
and the VA takes place to achieve the objective of providing a 
timely transition of wounded, ill, and injured servicemembers? 
Not only that, but also the most favorable standard to our 
vets?
    Ms. Wright. Yes, sir, absolutely, I have gotten into it. We 
have about 33,000 members within the entire IDES, presently. 
The Army is our biggest customer. The Army had a large group of 
individuals going through IDES that they worked diligently to 
make sure that they got the benefit they deserved and also the 
medical treatment that they deserved. They processed them 
through the system of the Medical Evaluation Board and the 
Physical Evaluation Board. The next step after that is the VA, 
and the way the VA is set up, all Army records go to a Seattle 
site, where they are processed in the VA section of the IDES.
    Yes, there is a backlog within the VA, and I will tell you, 
the VA is working diligently to work through this backlog. But, 
one of the things that we, DOD, has done to help the VA is, we 
have sent soldiers, at their request, up to the Seattle VA 
site. Now, the soldiers cannot process the disability claims, 
but they can work to do the administrative work that, if the 
claim adjusters were not doing the disability claims, they had 
to do all of the administrative work, too. What we have done is 
take that burden, if you will, off of the claim adjusters so 
they can focus in on the disability claims that the Army is 
sending to the Seattle site.
    In addition, the VA has recognized that the Seattle site is 
overwhelmed and cannot necessarily handle all of them in a 
timely manner, so they are now sending these claims out to 
other sites that can adjudicate the claims on a quicker, faster 
timeframe for the individual that is getting out of the system.
    Chairman Levin. Okay, thank you.
    Senator King.
    Senator King. Just one quick fact you might pass on to the 
VA, in terms of their backlog. Eisenhower retook Europe in 9 
months. I don't see any reason that this shouldn't be cleared 
up in 9 months.
    Thank you.
    Chairman Levin. Thank you, Senator King.
    Now, Senator Gillibrand was here for a long time, but she 
had to leave. She's going to be submitting her questions for 
the record. A number of us will be submitting questions for the 
record. Whoever takes that opportunity, I think we should 
express the hope that they would get questions for the record 
in by, let's say, next Monday--close of business, Monday. If 
that doesn't work for somebody, let our staff know.
    If there are no further questions, we want to thank our 
witnesses. We hope that the committee can take up your 
nominations very promptly and that you would all be promptly 
confirmed. That's always a chairman's dream. Let's hope it 
takes place.
    Thanks to you, your families, and your friends who are all 
here today, and those who aren't here because they had to go to 
school. [Laughter.]
    We'll stand adjourned.
    [Whereupon, at 12:10 p.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Deborah Lee James by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I agree with the goals of these defense reforms; indeed 
they have yielded a demonstrated improvement in the joint warfighting 
capabilities of the U.S. military. I do not currently see the need for 
any modifications.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. None at this time.
    Question. Do you believe that the role of the Service Chiefs under 
the Goldwater-Nichols legislation is appropriate and the policies and 
processes in existence allow that role to be fulfilled?
    Answer. Yes.
    Question. Do you see a need for any change in those roles, with 
regard to the resource allocation process or otherwise?
    Answer. No.
                             relationships
    Question. Section 8013 of title 10, U.S.C., discusses the 
responsibilities and authority of the Secretary of the Air Force. Other 
sections of law and traditional practice, also establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Secretary of the Air Force to 
the following officials:
    The Secretary of Defense.
    Answer. The Secretary of Defense is responsible for all matters 
within the Department of Defense (DOD). The Secretary of the Air Force 
is subject to the authority, direction, and control of the Secretary of 
Defense. If confirmed, I look forward to working closely with the 
Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense assists the Secretary of 
Defense in carrying out his duties and responsibilities and performs 
those duties assigned by the Secretary of Defense or by law. If 
confirmed, I will work closely with the Deputy Secretary of Defense on 
all matters.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. The Under Secretary of Defense for Acquisition, Technology, 
and Logistics (USD(AT&L)) is DOD's most senior acquisition official. If 
confirmed, I look forward to working with this official on all matters 
related to acquisition, technology, and logistics programs impacting 
the Department of the Air Force.
    Question. Chief of Staff of the Air Force.
    Answer. The Chief of Staff of the Air Force is subject to the 
authority, direction, and control of the Secretary of the Air Force, 
presides over the Air Staff, and is a principal advisor to the 
Secretary. In addition, as a member of the Joint Chiefs of Staff he is 
a military adviser to the President, the National Security Council, and 
the Secretary of Defense. The relationship between the Secretary and 
the Chief of Staff is extremely important. If confirmed, I would foster 
a close working relationship with the Chief of Staff to ensure that 
policies and resources are appropriate to meet the needs of the Air 
Force and respect his additional responsibilities as a member of the 
Joint Chiefs of Staff.
    Question. The Under Secretary of the Air Force.
    Answer. The Under Secretary of the Air Force is authorized, subject 
to the Secretary of the Air Force's direction and control, to act for 
and with the authority of the Secretary of the Air Force on all matters 
for which the Secretary is responsible; that is, to conduct the affairs 
of the Department of the Air Force.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I will work closely with the 
Chairman through the Chief of Staff of the Air Force on all joint 
matters affecting the Air Force.
    Question. The Combatant Commanders.
    Answer. I will work with the Chief of Staff to ensure that the Air 
Force is properly organized, trained, and equipped to provide the 
capabilities the combatant commanders need to execute their missions. 
This goal can be achieved through forthright dialogue which I will 
encourage.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard Bureau is a member of the 
Joint Chiefs of Staff and in this capacity serves as a military advisor 
to the President, Secretary of Defense, National Security Council, and 
is the DOD's official channel of communication to the Governors and 
State Adjutants General on all matters pertaining to the National 
Guard. He is responsible for ensuring that Army and Air National Guard 
personnel are accessible, capable, and ready to protect the homeland 
and to provide combat resources to the Army and Air Force. If 
confirmed, I will work with the Chief of the National Guard Bureau to 
find ways for the Air Force to capitalize on the talent available in 
the Reserve components in order to strengthen the Total Force.
    Question. The Director the Air National Guard.
    Answer. The Director of the Air National Guard serves as the 
principal advisor on guard matters to the Secretary of the Air Force 
and the Air Force Chief of Staff and is responsible for formulating, 
developing, and coordinating all policies, plans, and programs 
affecting more than 108,000 Guard members and civilians in more than 88 
flying wings and 175 geographically separated units across 213 
locations throughout the 50 States, the District of Columbia, Puerto 
Rico, Guam, and the Virgin Islands. If confirmed, I will work with the 
Director of the Air National Guard to find ways for the Air Force to 
capitalize on the talent available in the Reserve components in order 
to strengthen the Total Force.
    Question. The Director of the Air Force Reserve.
    Answer. The Chief of the Air Force Reserve serves as the principal 
advisor on Reserve matters to the Secretary of the Air Force and the 
Air Force Chief of Staff. As commander of Air Force Reserve Command, he 
has responsibility for the supervision of all U.S. Air Force Reserve 
units around the world. If confirmed, I look forward to working with 
the Chief of the Air Force Reserve in a continued effort to maximize 
the effectiveness and efficiency of the Total Force.
    Question. The Assistant Secretary of the Air Force for Acquisition.
    Answer. The Assistant Secretary of the Air Force for Acquisition is 
the Service Acquisition Executive (SAE) for the Air Force. However, the 
position is currently vacant and the former Secretary of the Air Force, 
Michael Donley, delegated SAE authority to the Principal Deputy, 
Assistant Secretary of the Air Force (Acquisition). If confirmed, I 
will work closely with the Principal Deputy on acquisition matters 
until the Assistant Secretary position is filled.
    Question. The General Counsel of the Air Force.
    Answer. The General Counsel is the chief legal officer and chief 
ethics official of the Department of the Air Force and serves as the 
senior legal advisor to Air Force leaders. He is responsible, on behalf 
of the Secretary of the Air Force, for the effective and efficient 
provision of legal services in the Air Force. If confirmed, I would 
look forward to developing a good working relationship with the General 
Counsel.
    Question. The Judge Advocate General of the Air Force.
    Answer. The Judge Advocate General (TJAG), per title 10 U.S.C. 
Sec. 8037, is the legal advisor of the Secretary of the Air Force and 
of all officers and agencies of the Department of the Air Force. He is 
also responsible for directing judge advocates in the performance of 
their duties. If confirmed, I will endeavor to maintain the close 
working relationship the Secretary of the Air Force has historically 
enjoyed with the Judge Advocate General.
    Question. The Superintendent of the U.S. Air Force Academy.
    Answer. The Academy functions as a separate field operating agency, 
reporting through the Chief of Staff to the Secretary of the Air Force. 
If confirmed, I will work closely with the Superintendent to address 
issues faced by the Academy and to promote the Academy's sustained 
commitment to excellence and fulfillment of its mission to train and 
educate future Air Force leaders.
    Question. The Director of the National Reconnaissance Office.
    Answer. Under current organizational relationships, the Under 
Secretary of the Air Force is no longer dual-hatted as the Director, 
National Reconnaissance Office (NRO). However, a strong collaborative 
relationship between the Air Force and the NRO remains essential to 
facilitate continuing Air Force technical and personnel support for the 
NRO's mission. If confirmed, I would be dual hatted as the Executive 
Agent for Space and I would chair the Defense Space Council where I 
would have the responsibility of achieving unity of effort across the 
DOD space enterprise. I would use these and other forums to maintain a 
close relationship with the Director, NRO, to increase cooperation on 
space matters.
    Question. The Director of National Intelligence.
    Answer. It is also vital that a strong collaborative working 
relationship exist between the Air Force and the Director of National 
Intelligence. If confirmed, I will work with the Director of National 
Intelligence to foster that relationship, particularly in coordination 
of national security space matters.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Secretary of the Air Force?
    Answer. Pursuant to title 10 U.S.C. Sec. 8013 and subject to the 
authority, direction, and control of the Secretary of Defense, the 
Secretary of the Air Force is responsible for and has the authority 
necessary to conduct all affairs of the Department of the Air Force. 
These functions include organizing, supplying, equipping, training, 
maintaining, and administering the Air Force.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If confirmed as the Secretary of the Air Force, I would 
expect the Secretary of Defense to assign duties to me consistent with 
the responsibilities outlined above.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Secretary of the Air 
Force?
    Answer. Title 10 provides for two staffs in the same headquarters, 
a predominantly military Air Staff and a predominantly civilian 
Secretariat. My intention is that these two staffs will function 
effectively together as a single headquarters team supporting the needs 
of both the Chief of Staff and the Secretary, while protecting the 
Chief of Staff's independent advisory role as a member of the Joint 
Chiefs of Staff. I will foster close working relationships between the 
civilian and military staffs and work with them on matters within their 
areas of responsibility in order to more effectively lead and manage 
the Department of the Air Force.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have worked for more than 3 decades as a civilian in 
support of our military--from the executive branch, to Capitol Hill, to 
the world of think tanks, to the defense industry, and as a volunteer 
in some of the wonderful non-profits which help our military, veterans 
and their families in ways that government cannot.
    Specifically, I served 17 years in the Government, first for the 
Department of the Army, followed by service on the House Armed Services 
Committee Staff, and then in the Pentagon as the Assistant Secretary of 
Defense for Reserve Affairs. Subsequently, I worked for 15 years in the 
private sector with United Technologies Corporation, the Business 
Executives for National Security and, Science Applications 
International Corporation (SAIC). Throughout this time, I served on 
boards as a volunteer with the USO, the Tragedy Assistance Program for 
Survivors, the Pentagon Federal Credit Union Foundation, and other 
military charities, as well as serving on the Defense Advisory 
Committee on Women in the Services (DACOWITS), an advisory body to the 
Secretary of Defense on matters affecting our women in uniform.
    I am absolutely committed to keeping the U.S. Air Force the very 
best Air Force in the world.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Secretary of the Air Force?
    Answer. The top challenges for the next Secretary of the Air Force 
are near-term readiness and building the most capable, affordable Air 
Force for 2023. The Air Force must always be prepared to answer the 
Nation's call, and that means we need airmen with the right training 
and the right equipment that can complete the difficult tasks and 
missions they are asked to do when they are asked to do them. If 
confirmed, I will do everything in my power to ensure our Air Force is 
ready to take on near-term missions as well as build toward the 
challenges of the future.
    The next Secretary of the Air Force will also face challenges with 
regard to strategy and execution in today's difficult fiscal reality. 
If confirmed, I will work to ensure Air Force strategy is focused on 
supporting the President's National Security Strategy, the Defense 
Strategic Guidance, and within budgets provided, I will work to ensure 
the ability to execute the strategy. At this time in our country's 
history--when airmen have been in the fight for more than 2 decades, as 
aging aircraft and other critical equipment have reached or will soon 
reach the point of needing modernization or replacement, and as Federal 
budget resources decline--program and budget decisions and tradeoffs 
cannot be avoided.
    No matter what challenges confront us, our force must be confident 
that leaders are focused on taking care of our airmen and their 
families. If confirmed, my approach to decisionmaking will always keep 
an eye toward taking care of our airmen.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work with the Chief of Staff of the 
Air Force, the commanders of the Service's major commands, and the 
Headquarters Air Force staff to identify the most urgent readiness 
concerns in the short- , medium-, and long-term. We must address these 
concerns in tandem with a realistic assessment of the Service's ability 
to execute the defense strategy, coupled with a realistic assessment of 
the current fiscal environment. We must take these issues into account 
during future program and budget planning.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Secretary of the Air Force?
    Answer. I am impressed with the professionalism and expertise of 
the men and women who serve in the U.S. Air Force. If confirmed, I will 
gather data to understand priorities and work with leaders to determine 
solutions. Additionally, I will strive to foster an environment that 
encourages communication within the Air Force and DOD, across the 
interagency, and with the legislative branch. Good communication is an 
important part of any effort to addressing issues that affect our 
airmen and our Nation.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I will begin an extensive internal Air Force 
communication effort on my first day. From that point on, I will seek 
to establish a stronger communications foundation that builds on 
existing relationships with external stakeholders, including Congress, 
national security experts, and airpower advocates.
                               priorities
    Question. If confirmed, what broad priorities will you establish?
    Answer. If confirmed, I will focus on three broad priorities. 
First, I will be committed to taking care of people. This priority 
includes: recruiting and training a quality force; focusing on ending 
the blight of sexual assault in the Air Force; finding the right 
balance between the Active Duty, Reserve component, and civilian airmen 
who make up the Total Force; and taking care of airmen and military 
families.
    Second, if confirmed, I will make it a priority to balance today's 
readiness with tomorrow's modernization needs, while supporting the 
requirements of combatant commanders. The nuclear enterprise will 
receive special attention as will increasing confidence in the 
acquisition process.
    Third, if confirmed, I will work to ensure that the world's best 
Air Force is the most capable and at the lowest possible cost to the 
taxpayer.
                            readiness levels
    Question. What is your assessment of the current readiness of the 
Air Force to execute its assigned missions?
    Answer. It is my understanding that readiness has suffered, 
particularly under sequester. Reductions to the fiscal year 2014 
President's budget would further harm readiness.
    Question. How do you believe sequestration may have affected 
readiness?
    Answer. I am aware the Air Force stood down 13 Active Duty combat 
squadron equivalents and 18 institutional squadrons in fiscal year 
2013. I have been briefed that recovering the readiness levels of these 
units will take well into fiscal year 2014. The Air Force cancelled one 
of two Weapon Instructor Courses and curtailed or cancelled three of 
six Red Flag exercises. This advanced training is critical to gain and 
maintain readiness at the high-end of training requirements.
    Curtailing and or cancelling this advanced training results in a 
readiness deficit ``bathtub''--the Air Force cannot make up these 
events.
    Question. Can the Air Force meet all combatant command requirements 
with its current readiness status?
    Answer. Air Force leadership has said no, the Air Force cannot 
currently meet all combatant command requirements. Air Force leadership 
has also stated the Air Force can meet current combatant commander 
requirements only with the use of rotational forces. In doing so, the 
Air Force has few if any ready forces for emergent combatant command 
requirements.
    Question. What do you view as the other major readiness challenges 
that will have to be addressed by the Air Force over the next 5 years, 
and, if confirmed, how will you approach all of these issues?
    Answer. In addition to working toward a restoration of full 
spectrum training levels, the next 5 years will be critical for 
building the readiness and capabilities of tomorrow. Capability 
includes the requisite technology and weapons necessary to prevail in a 
highly-contested, anti-access/area-denial environment. If confirmed, I 
will focus on the critical and unique capabilities the Air Force 
provides to our Nation and the joint warfighters.
 annual increase in rates of basic pay below the employment cost index
    Question. The Department has requested an across-the-board pay 
raise for 2014 for military personnel of 1 percent, versus a 1.8 
percent rise in the Employment Cost Index (ECI) benchmark, and has 
indicated that in order to restrain the growth of personnel costs, 
similar below-ECI pay raises may be necessary over the next several 
years.
    What is your assessment of the impact a 1 percent pay raise would 
have on recruiting and retention in the Air Force for 2014? What would 
be the impact of a 1 percent pay raise in 2015 through 2017?
    Answer. I believe military compensation is, and must remain, 
competitive to sustain the recruitment and retention of high caliber 
men and women to meet readiness requirements and accomplish the 
national security mission; however, in light of the current economic 
crisis and overall reductions in defense spending, the Air Force must 
look at balancing personnel costs to avoid reductions to force 
structure and modernization efforts critical to support the warfighter 
and national defense.
    In the short term, I am hopeful that a 1 percent pay raise will 
have a negligible impact upon overall recruiting and retention. I 
believe that sustained pay raises below ECI warrant close monitoring of 
the force, given the expected improvements in the economy.
                        force structure changes
    Question. For fiscal year 2013, the Air Force proposed major 
changes in the force structure, with the cuts falling more heavily in 
the Air National Guard. These proposals were soundly rejected by 
Congress, based on both the content of the decisions and the way the 
decisions were made.
    If you are confirmed as Secretary of the Air Force, what steps 
would you propose to take to restore confidence within Congress about 
the quality of the Air Force's decisions and decisionmaking process?
    Answer. If confirmed, I will work closely with Congress on all 
issues relating to the Total Force. I believe the Air Force is 
committed to the Total Force (Active, Guard, Reserve) and, through 
efforts like the Total Force Task Force and a detailed, analytically 
rigorous Force Composition Analysis process, the Service will 
strengthen its decisionmaking in this area.
    If confirmed, I plan to ensure that the decisionmaking process is 
highly collaborative and involves all key stakeholders from the Active 
component, the Air National Guard, and the Air Force Reserve. The 
components are key participants throughout the development, 
integration, and defense of the Air Force Program Objective Memorandum 
and implementation of the congressionally-approved budget. 
Additionally, a newly established consultative process involving DOD, 
Council of Governors, and individual States promises an even more 
enhanced, interactive relationship. Taken collectively, I believe these 
efforts will help the Air Force continue to improve the quality and 
transparency in its' decisionmaking process and will help restore 
Congress's confidence in the Air Force's firm commitment to the Total 
Force. Finally, I look forward to working with the National Commission 
on the Structure of the Air Force to provide a Total Force solution.
    Question. If sequestration continues through 2018, what would be 
the impact, in your view, on the Active Duty and Reserve end strengths 
of the Air Force and how would the mix between the Active and Reserve 
Forces be affected?
    Answer. I cannot make an assessment at this time on the future mix 
between Active and Reserve Forces, but if confirmed, I will work 
closely with Congress, State Governors, and the Reserve components to 
determine the right balance between Active and Reserve Forces to most 
efficiently satisfy force structure requirements. If sequestration 
continues, I would expect the end strength of both the Active Duty and 
the Reserve to decrease.
                  reserve deployment and mobilization
    Question. We understand that the Air Force may be implementing a 
policy of filling deployments assigned to Air Guard and Air Reserve 
units by ordering those units to Active Duty while specifically 
excluding the use of volunteers from outside those units.
    What effect do you believe this policy will have on the ability of 
the Air Force Reserve and Air Guard to meet deployment commitments and 
fulfill combat missions?
    Answer. I have been briefed that this new construct does not impact 
the ability of the Reserve component to meet their deployment 
commitments. If confirmed, I will dig more deeply in to this approach.
    Question. Do you support assigning any support missions exclusively 
to the Reserve?
    Answer. At this time I cannot definitively answer this question.
                 sexual assault prevention and response
    Question. In 2012, for the fourth year in a row, there were more 
than 3000 reported cases of sexual assault in the military, including 
2558 unrestricted reports, and an additional 816 restricted reports. 
Moreover, a recent survey conducted by DOD indicates that the actual 
number of sexual offenses could be considerably higher, as 6.1 percent 
of Active Duty women and 1.2 percent of Active Duty men surveyed 
reported having experienced an incident of unwanted sexual contact in 
the previous 12 months. This survey has been criticized by some because 
its conclusions are extrapolated from an unscientific sample set and 
the questions asked in the survey were too imprecise. The Air Force 
recently addressed numerous allegations of sexual misconduct by 
Military Training Instructors at Basic Military Training at Joint Base 
San Antonio-Lackland. The Air Force addressed similar allegations of 
sexual misconduct at the Air Force Academy nearly a decade ago.
    What is your assessment of the Air Force response to the 
allegations of sexual assault at Basic Military Training at Joint Base 
San Antonio-Lackland?
    Answer. Sexual assault is an egregious and horrific crime wherever 
and whenever it occurs. The instances and allegations of sexual 
assault, unprofessional relationships, and other misconduct at Basic 
Military Training have been particularly troubling to me.
    My assessment is that the Air Force acted aggressively to 
investigate, prosecute, punish perpetrators; and hold leaders 
accountable for the incidents at Lackland. Although we were able to 
take decisive action once senior leaders became aware of the crimes, I 
am concerned about that many victims did not feel comfortable reporting 
and there was a substantial delay in reporting many of the incidents at 
Lackland.
    Over the past year, there appears to have been steady and positive 
progress. To the best of my knowledge, there has not been an allegation 
of recent Military Training Instructor sexual misconduct for more than 
13 months. If confirmed, I look forward to working with Air Force 
leadership to ensure that Basic Military Training is a safe, secure 
environment and the most professionally executed training program in 
the world for Air Force trainees. I am committed to ensuring that the 
Air Force training environments foster a culture of respect where this 
behavior is not tolerated and victims are empowered to report any 
crime.
    Question. What is your assessment of the Air Force's implementation 
of the Secretary's new policies?
    Answer. It is my understanding of the Secretary's 6 May 
initiatives, the Air Force has implemented a legal advocacy program for 
victims, required that judge advocate general officers conduct pre-
trial investigations and provide commanders the option to temporarily 
remove members accused of sexual assault from the unit. The Air Force 
is on track to complete the remaining three additional reforms in the 
next year. These include standardizing processes by which sexual 
assault allegations are elevated to a general or flag officer, ensure 
consistent standards prohibiting inappropriate conduct by trainers and 
recruiters, and submit to regular audits to ensure military 
investigations of sexual assault cases meet DOD-wide standards. I will 
work with the other Services and the Secretary of Defense to ensure we 
implement these coordinated efforts as soon as possible. One of these 
key reforms, the Special Victims Counsel program, was an Air Force 
program and illustrates the innovative and progressive efforts to 
enhance victim advocacy and protection. The Air Force established this 
as a pilot program in January 2013 and the 14 August Executive Action 
memo directed its adoption across DOD.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults have 
occurred?
    Answer. In my view, the chain of command has, and should retain, 
ultimate responsibility for the morale, welfare, good order, 
discipline, and effectiveness of military units. In the past the chain 
of command has been effective in dealing with issues such as racial 
integration, drug use during the Vietnam war, and the ``Don't Ask/Don't 
Tell'' policy. We need to ensure they place the same focus and emphasis 
on sexual assault. The chain of command must be held directly 
responsible for the climate and behavior of their airmen and women. 
They must be given both the incentives and the tools to ensure a 
climate of respect permeates their command.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. I have not found sufficient evidence to support the 
proposal that removing commanders from the Uniform Code of Military 
Justice (UCMJ) process and replacing them with judge advocates outside 
the chain of command will improve the sexual assault response or 
accountability processes.
    Judge advocates are already a huge part of the process. I have been 
briefed that in nearly every case in the last 3 years Air Force 
commanders agreed with their staff judge advocates' recommendations to 
send allegations of sexual assault to court-martial. Therefore, it does 
not appear that removing commanders from their UCMJ disposition role 
will result in a large increase in prosecutions.
    Additionally, I do not believe we can solve the sexual assault 
problem by reducing commanders' authority to hold airmen accountable. 
The challenge we face regarding sexual assault in the military is 
complex and requires commanders be fully involved in its solution. 
Rather than remove commanders' authority to send airmen to a court-
martial for committing sexual assault, I believe commanders must be 
held more accountable for failing to adequately respond to sexual 
assaults in their units or for failing to maintain a healthy unit 
climate necessary to safeguard against the rise of sexual assault. 
Commanders must be fostering an environment in which victims are 
encouraged to report any crimes and feel safeguarded from any risk of 
reprisal or career consequences.
    Question. What is your view of the protections afforded to victims 
who are required to testify at Article 32, UCMJ, investigations that 
are required before charges can be referred to a General Court-Martial?
    Answer. I am not satisfied. I have been disturbed by recent press 
reports from the Article 32 process in the Naval Academy sexual assault 
case and I feel the Article 32 process needs to be improved to ensure 
better protection of victims' rights.
    I would note that one improvement to the Article 32 hearing process 
is already being undertaken. Secretary Hagel has directed that all 
Article 32 Investigating Officers for sexual assault charges must be 
judge advocates. This has long been the practice in the Air Force. I 
believe we could enhance the effectiveness of judge advocates by 
ensuring they receive better training specifically tailored to the host 
of challenging issues in sexual assault cases.
    Question. What is your understanding of the resources and programs 
the Air Force has in place to provide victims of sexual assaults the 
medical, psychological, and legal help that they need?
    Answer. As I learned about the programs the Air Force provides for 
victims of sexual assault, I was impressed with the whole-person 
concept employed for healing. The Air Force recognizes resiliency is 
built through having a strong physical, mental, spiritual, and social 
core. In response to both restricted and unrestricted reports, the Air 
Force provides physical, psychological, spiritual, legal, and social 
support to victims. This support continues until the victim feels 
stronger in the healing process and decides they no longer require 
those services. The Air Force recognizes healing is unique to every 
person and provides victims the necessary time and resources to 
recover. Air Force medical personnel, lawyers, sexual assault response 
coordinators (SARC) and victim advocates (VA) are dedicated to victim 
well-being and returning the victim to a healthy state. This care is 
provided both in garrison and deployed.
    Question. What is your view of the steps the Air Force has taken to 
prevent additional sexual assaults? In your view, are these steps 
adequate?
    Answer. I believe the Air Force is absolutely committed to fighting 
sexual assault in its ranks. It has a new directorate-level sexual 
assault prevention and response (SAPR) office led by a two-star general 
with a team of cross-functional dedicated experts and is dedicating 
other resources to attack this crime. If confirmed, a top priority for 
me will be to focus on institutionalizing the changes passed by 
Congress and ordered by Secretary Hagel as well as any new tools 
Congress gives along the way. I will:

        - Make sure victims know it's not their fault--report if it 
        happens
        - Take care of victims with compassion and without retaliation
        - Aggressively weed out, investigate and prosecute offenders
        - Hold commanders more accountable for what goes on in their 
        units
        - Make clear there are consequences for individuals who engage 
        in violence and disrespect of other airmen. We don't want them 
        in the Air Force
        - Work with DOD and Air Force leaders, Congress, and the Panel 
        on Military Justice to review other ideas

    The Air Force implemented the Special Victims Counsel program which 
has proven to be a benchmark for all of DOD. The Air Force implemented 
new administrative discharge provisions in July 2013, under which 
commanders must initiate involuntary administrative discharge 
processing for any airman, officer or enlisted, who commits sexual 
assault, sexual assault of a child, or attempts to commit these crimes. 
Additionally, an Air Force member who engages in an unprofessional 
relationship while serving in a special position of trust (i.e., 
recruiter, faculty member, or staff member) is specifically subject to 
administrative discharge for misconduct. The Air Force is currently 
developing a Basic Military Training Transition Program which will 
reinforce Air Force core values and emphasizes appropriate behavior. 
The Air Force developed the bill of rights for all airmen, ensuring 
they understand how they should be treated and how to treat others. The 
National Organization of Victim Assistance provides credentialing for 
Air Force counselors. Its continuing education requirements ensure 
ongoing support from diverse civilian as well as military institutions 
which will give our SARC and victim advocates (VA) expanded resources 
to stay abreast of best practices emerging in prevention and care.
    Question. What is your view of the adequacy of the training and 
resources the Air Force has in place to investigate and respond to 
allegations of sexual assault?
    Answer. It is my understanding every Air Force Office of Special 
Investigation (AFOSI) special agent is trained and credentialed at the 
Federal Law Enforcement Training Center to handle myriad felony 
investigations, including sexual assaults. In addition, the Air Force 
added 24 civilian AFOSI sexual assault trained special agents at high 
threat installations and designated 9 senior trial counsels with 
advanced training to prosecute these cases. The Air Force developed 
training in fiscal year 2013 that JAGs now attend jointly with AFOSI. 
These training courses are the Sex Crimes Investigation Training 
Program at the Federal Law Enforcement Training Center and the Advanced 
Sexual Assault Litigation Course at the Air Force JAG School.
    AFOSI and JAGs attend both courses, focusing on the investigation 
and prosecution stages.
    Question. Do you consider the Air Force's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Answer. The policies are broad and appear comprehensive yet not 
enough victim's report--so more needs to be done to ensure victims 
understand that if a crime occurs, the Air Force will hold those 
responsible accountable for their crime. The Air Force also needs to 
make clear that it is never the victim's fault and that in addition to 
prosecution, the Air Force is committed to providing compassionate care 
for victims and protecting them against any risk of retaliation.
    Question. What is your view of the adequacy of resources in the Air 
Force to investigate allegations of sexual misconduct and to hold 
perpetrators accountable for their actions?
    Answer. I am aware the Air Force has dedicated additional resources 
over the last few years; if confirmed, I will make a more complete 
assessment of adequacy.
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedures have been put into effect?
    Answer. Not enough victims report--this is obviously a problem. I 
will need to dig more deeply into ``why'', if I am confirmed. My 
experience says that victims fear they will not be believed, they feel 
ashamed and they may be worried that they will be ostracized or 
retaliated against by leadership and peers.
    Question. What is your view of the appropriate role for senior 
military and civilian leaders in the Secretariat and the Air staff in 
overseeing the effectiveness of implementation of new policies relating 
to sexual assault?
    Answer. Senior military and civilian leaders, beginning with the 
Secretariat and Air Staff, must focus on promoting an environment that 
does not tolerate sexual assault. Eliminating the stigma of reporting 
this crime is essential. Senior leaders must instill the belief that if 
an assault occurs, reporting is necessary and expected, whether 
unrestricted or restricted. Airmen need to believe their chain will 
support them through the legal and healing processes, while holding 
perpetrators appropriately accountable.
    Currently, the Air Force's SAPR Council joins the most senior 
members from across the Service for monthly discussion of program 
initiatives, issues, and best practices. If confirmed, I will expect 
all leaders to be personally engaged in Sexual Assault Prevention and 
Response.
    Question. Do you believe that sexual assault continues to be an 
underreported crime within the Department for the Air Force?
    Answer. Sexual assault is likely a highly underreported violent 
crime in American society, and yes I believe it continues to be an 
underreported crime within the Air Force as well. The sexual assault 
prevalence survey performed by Gallup in 2010 also confirmed this view. 
The Air Force remains committed to improved reporting and will 
administer a follow-up prevalence survey this spring.
    Question. If so, what are the barriers that discourage or prevent 
victims from coming forward?
    Answer. Based on my experience from DACOWITS working groups and 
briefings, victims not wanting fellow airmen to know and victims not 
wanting their families to know are significant barriers to reporting. 
Victims may also fear for impact on their career if they report at 
about a fellow servicemember.
    Question. If confirmed, what additional steps would you take to 
remove these barriers to reporting sexual assaults?
    Answer. If confirmed, I will build on the core values of the Air 
Force by demanding an environment that identifies perpetrators and 
holds them appropriately accountable, a climate where victims feel 
empowered to come forward to report this crime.
    Additionally, I believe commanders should be ``graded'' on their 
performance reports for the sexual assault reporting climate in their 
unit.
    I think we can affect change; we have to stay on it each and every 
day. One of the greatest challenges will be helping airmen of all ranks 
assess personal roles in preventing this crime and understand how to 
improve decisionmaking. This will take time, but I will work closely 
with the Air Force team to focus on this complex issue.
          air force policies regarding drug and alcohol abuse
    Question. What is your understanding of the Air Force's policy with 
respect to disciplinary action and administrative separation of 
soldiers who have been determined to have used illegal drugs? Do you 
agree with this policy?
    Answer. Air Force policy states that drug abuse is incompatible 
with Military Service and airmen who abuse drugs one or more times are 
subject to administrative separation for misconduct. In fact, 
administrative separation processing is mandatory for drug abuse unless 
a waiver is granted. This seems to be the appropriate policy to me. The 
Air Force recently adopted the same discharge policy for sexual 
assault, which I also believe will help deter and combat sexual assault 
in the Air Force.
    Question. What is your understanding of the Air Force's policy with 
respect to rehabilitation and retention on active duty of soldiers who 
have been determined to have used illegal drugs or abused alcohol or 
prescription drugs? Do you agree with this policy?
    Answer. It is my understanding that only in very limited 
circumstances does the Air Force retain airmen who we determine have 
used illegal drugs, including illegal use of prescription drugs. In 
order to be retained, airmen have the burden of proving that retention 
is warranted by meeting a number of criteria, to include such drug use 
was a departure from the airman's usual behavior and is not likely to 
recur, does not involve recurring incidents, and does not involve 
distribution.
    I would like to ensure that the Air Force has a robust Alcohol and 
Drug Abuse Prevention and Treatment (ADAPT) Program. If confirmed, I 
look forward to reviewing this program to determine its adequacy.
    Question. Do you believe that the Air Force has devoted sufficient 
resources to implementation of its rehabilitation policies and 
objectives since 2001? If not, in what ways?
    Answer. I cannot say at this time, but look forward to reviewing 
this program, if confirmed.
                           suicide prevention
    Question. The number of suicides in the total Air Force continues 
to be of concern to the committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Air Force, the Air National 
Guard, and the Air Force Reserve, to prevent suicides and increase the 
resiliency of airmen and their families?
    Answer. I believe that effective suicide prevention programs start 
at the top and require engaged leaders and communities to be effective. 
If confirmed I will champion the Air Force's continuing efforts in 
building a strong wingman culture where leaders at every level 
establish a command climate where airmen know that they should seek 
help early, before problems become unmanageable.
    Of the airmen lost to suicide over the last year, causes included 
relationship difficulties, legal and financial problems. These very 
personal factors highlight the need for continuing vigilance and an 
effective culture of airmen looking out for one another. When required, 
I will ensure that all of our airmen have access to the counseling and 
support services they need to help them through any difficult times.
    If confirmed, I will work with Air Force and DOD leaders to ensure 
that we look for and adopt best practices in suicide prevention for all 
components of the Air Force, always emphasizing that concerned, engaged 
leaders and communities are the solution.
                          religious guidelines
    Question. In your view, do policies concerning religious 
accommodation in the military appropriately accommodate the free 
exercise of religion and other beliefs, including individual 
expressions of belief, without impinging on those who have different 
beliefs, including no religious belief?
    Answer. I believe so. The policies are intended to protect both the 
free exercise of religion for all airmen and avoid the appearance of an 
official endorsement of any particular religion. Air Force policy 
presently communicates that all airmen have the freedom to choose to 
practice their particular religion or subscribe to no religious belief 
at all.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact good order and 
discipline?
    Answer. This is certainly my understanding. Current law and 
policies allow for accommodation of individual airmen's expressions of 
belief so long as such expressions do not adversely impact good order 
and discipline.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. It is my understanding Air Force chaplains are well trained 
to provide prayers offered in pluralistic settings. This requires 
sensitivity to their audience which includes individuals from various 
religious traditions as well as those who profess no religious belief 
at all. The guidance provided by Air Force leaders also makes clear 
that supervisors respect each chaplains' right to adhere to the tenets 
of his or her faith and thus not require chaplains to participate in 
religious activities, including public prayer, which are inconsistent 
with their faith tradition.
                      family readiness and support
    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of concerns among military families as a result of 
the stress of deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for Air Force personnel and their families, and, if confirmed, 
how would you ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. I understand that a primary concern for airmen and their 
family members is their ability to do the mission and simultaneously 
support their families. Specific areas of concern include access to 
quality specialized child care and education. Also, for those 
transitioning to the civilian sector, military members are concerned 
about being prepared for employment and/or continuing their education. 
Families are concerned about the civilian spouse finding employment as 
they relocate from installation to installation. Finally, I believe the 
work/life balance is a major issue. If confirmed, I will ensure a 
thorough review of all available resources to support valuable family 
programs.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and future reductions in end 
strength?
    Answer. I understand the Airman and Family Readiness Centers serve 
as a resource hub for Air Force families prior-to, during, and 
following deployments. The deployment programs the Airman and Family 
Readiness Center have in place for the airmen and family members are 
crucial in supporting the Mission. If confirmed, I will seek input from 
a variety of sources including from family members themselves and will 
work to ensure the Air Force programs adequately support Air Force 
families.
    Question. If confirmed, how would you ensure support is provided to 
Reserve component families related to mobilization, deployment and 
family readiness, as well as to Active Duty families who do not reside 
near a military installation?
    Answer. The Air Force is a Total Force, and provides resources and 
support to all components through various Airman and Family and Child 
and Youth programs. Geographically separated servicemembers (and their 
families) have immediate access to many resources online that enable 
them to remain connected to their units and support services. I look 
forward to exploring the adequacy of existing programs in this area.
    Question. If confirmed, what steps will you take to sustain Air 
Force family support, given current fiscal constraints?
    Answer. If confirmed, I will work with the Chief of Staff and Chief 
Master Sergeant of the Air Force to engage Air Force families on the 
support they feel is most needed.
    I will review current manpower and staffing for family programs and 
support programs that enhance Mission Readiness. I would like to see 
sufficient staffing and training for family readiness staff as we 
partner with community organizations to continue building support for 
airmen and their families.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and sometimes lengthy 
deployments. These programs must be relevant and attractive to all 
eligible users, including Active Duty and Reserve personnel, retirees, 
and families.
    What challenges do you foresee in sustaining Air Force MWR 
programs, particularly in view of the current fiscal environment, and 
if confirmed, are there any improvements you would seek to achieve?
    Answer. MWR programs help the Air Force to maintain ready, 
resilient airmen and families, and sustained reductions to these 
programs may negatively impact future readiness and unit cohesion. If 
confirmed, my goal would be to determine how best to provide the most 
critical family and MWR programs and base-level support services 
possible in today's budget-constrained environment.
    Regardless of constrained budgets, I am committed to supporting our 
airmen and their families and will make adjustments based on available 
funding in an effort to focus our resources where they are needed most.
    management and development of the senior executive service (ses)
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Air 
Force's senior executive workforce, especially in the critically 
important areas of acquisition, financial management, and the 
scientific and technical fields?
    Answer. I believe that the members of the Senior Executive Service 
are an integral and critical component to the continued success of 
these vital career fields.
    Question. Over the last 10 years, the Air Force budget has almost 
doubled, but the number of senior executives in the Department of the 
Air Force has remained almost unchanged.
    Do you believe that the Air Force has the number of senior 
executives it needs, with the proper skills to manage the Department in 
the future?
    Answer. I have not yet had the opportunity to review the number of 
Air Force senior executives and their associated proficiency levels in 
critical competencies. If confirmed, I will look into the issue.
      balance between civilian employees and contractor employees
    Question. In recent years, the Air Force and DOD have become 
increasingly reliant on services provided by contractors. In many 
cases, contractor employees work in the same offices, serve on the same 
projects and task forces, and perform many of the same functions as 
Federal employees.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of the Air Force and 
DOD?
    Answer. It is difficult to make a macro-level statement about this 
issue at this time. I do believe we must continue to ensure that 
inherently governmental functions are not outsourced and scrutinize 
those areas where the distinction has been blurred. It is also 
important to step back and look at all work accomplished by military, 
civilian, and contractor to achieve the correct balance. If confirmed, 
I will work with leaders across the Air Force to assess this matter to 
ensure compliance with the law and with the President's policy.
    Question. In your view, has the Air Force become too reliant on 
contractors to perform its basic functions?
    Answer. Once again, I cannot offer a macro-level view at this time. 
I recognize this is an area of concern and will address it if 
confirmed.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of the Air Force?
    Answer. The Federal Acquisition Regulation and title 10 U.S.C., 
section 129, restricts the use of personal services contracts. I 
believe these regulations best serve the interests of the Air Force. If 
confirmed, I would continue to work with leaders across the Air Force 
to ensure compliance with applicable law and policy. I believe my 
experience in both the private and public sector can help in this area.
    Question. Do you believe that the Air Force and DOD should 
undertake a comprehensive reappraisal of ``inherently governmental 
functions'' and other critical government functions, and how they are 
performed?
    Answer. The Department's ``sourcing'' of functions and work between 
military and civilians, or through contracted services, must be 
consistent with workload requirements, funding availability, readiness 
and management needs, as well as applicable laws and statutes. The Air 
Force should ensure that military or Federal civilians are performing 
all inherently governmental jobs, and that sufficient levels of 
civilians are available to perform critical oversight, management, and 
readiness functions of the Air Force. I am not convinced a 
comprehensive review of ``inherently governmental functions'' is 
necessary, but I do believe more rigorous oversight where we apply 
contracted services is necessary across the Department.
    Question. If confirmed, will you work with other appropriate 
officials in DOD to address these issues?
    Answer. If confirmed, I will continue to collaborate with other Air 
Force leaders to ensure these matters are addressed in the best 
interest of the Air Force and DOD.
    Question. Section 808 of the National Defense Authorization Act for 
Fiscal Year 2012 requires DOD to implement a freeze on spending for 
contract services, comparable to the freeze on civilian personnel 
required by the efficiencies initiatives.
    What is your understanding of the impact that the freeze on 
spending for contract services has had on the Air Force?
    Answer. Specific to fiscal year 2012 and fiscal year 2013, the 
period covered by the NDAA, my understanding is the limitation is a 
broad brush that puts an overall ceiling on not only management support 
contracts, but also other mission critical contracts such as Weapon 
System Sustainment, Ranges, and Critical Infrastructure. If the 
limitation is so broad that it encompasses all contracts, there may be 
unintended consequences that we will need to monitor. If confirmed, I 
look forward to working with Air Force leaders to balance acceptable 
risks and available budgets to ensure future mission capability as 
freezes to civilian personnel and contract services are carried out.
    Question. What is your understanding of Air Force plans for 
spending for contract services over the next 5 years?
    Answer. At this time I am unfamiliar with the specifics of Air 
Force plans for contract services over the next 5 years. If confirmed, 
I will work with Air Force leaders to properly balance contract 
services spending with other Air Force priorities.
    Question. What is your view on the feasibility and advisability of 
further reductions in spending for contract services over the next 5 
years?
    Answer. Without an understanding of specific Air Force plans for 
contract services over the next 5 years, I cannot at this time assess 
the feasibility and advisability of further reductions. Any budget 
adjustments must be made carefully and with full understanding of the 
accepted risks and impacts to mission capability.
                 air force civilian personnel workforce
    Question. Section 955 of the National Defense Authorization Act for 
Fiscal Year 2013 required the Secretary of Defense to develop a plan to 
reduce the size of the civilian personnel workforce by 5 percent over 
the next 5 years. The plan developed by the Secretary does not meet 
this objective. Since the time that section 955 was enacted, the 
Department has implemented hiring freezes and furloughs due to 
sequestration.
    As a result, the DOD civilian personnel workforce is substantially 
smaller than it was when section 955 was enacted or at the time the 
plan was submitted.
    Do you agree that the Air Force's civilian employee workforce plays 
a vital role in the functioning of the Department of the Air Force?
    Answer. The U.S. Air Force would not be the best in the world 
without the daily contributions of civilian airmen as vital members of 
the Air Force family and the joint team. They are integral to nearly 
every part of the Air Force mission, from processing recruits and 
running family programs, to managing budgets and developing strategy. 
They fix airplanes, sustain infrastructure, design and develop future 
systems, and deploy to support combatant commanders. The Air Force 
could not get by without its civilians.
    Question. Do you agree that if sequestration continues through 
fiscal year 2014 and beyond, the Air Force will need to further reduce 
the size of its civilian workforce?
    Answer. This seems extremely likely, in my opinion.
    Question. In your view, would it be preferable for the Air Force to 
make planned, prioritized reductions to its civilian workforce, or to 
downsize using arbitrary reductions based on hiring freezes and 
workforce attrition?
    Answer. In my view, planned and prioritized reductions always are 
preferable to arbitrary reductions.
                           acquisition issues
    Question. Major Defense Acquisition Programs (MDAPs) in the Air 
Force and the other Military Services continue to be subject to funding 
and requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. Yes, instability in funding and requirements contributes to 
increases in program cost and schedule delays. A major imperative of 
mine would be to improve the acquisition process.
    Question. What steps, if any, do you believe the Air Force should 
take to address funding and requirements instability?
    Answer. I believe that it is incumbent on the acquisition community 
to work with the requirements and resource communities to ensure 
programs have clear, achievable requirements and realistic funding 
profiles. The acquisition community must bring its technical expertise 
to the discussion of requirements and funding throughout the 
acquisition progress to enable requirements and funding profiles that 
are inherently stable because they are realistic and affordable.
    I support USD(AT&L)'s affordability initiative to establish goals 
and caps to ensure funding limitations are identified early and 
revalidated at milestone decisions. If confirmed I would work closely 
with the Air Force and DOD leadership to assess root causes and sources 
of instability, and work to put in place measures to limit their 
occurrence.
    Question. The Government Accountability Office (GAO) has reported 
that the use of insufficiently mature technologies has resulted in 
significant cost and schedule growth in the MDAPs of the Air Force and 
the other military departments. Section 2366a of title 10, U.S.C., 
requires the Milestone Decision Authority for an MDAP to certify that 
critical technologies have reached an appropriate level of maturity 
before Milestone B approval.
    Do you believe that the use of insufficiently mature technologies 
drives up program costs and leads to delays in the fielding of major 
weapon systems?
    Answer. Yes, it is my understanding that premature pursuit of 
insufficiently mature technologies can result in schedule and cost 
growth. The growth would likely occur as one works to overcome 
technology challenges that were not adequately budgeted for at the 
outset of the development or production activity.
    Question. What steps will you take, if confirmed, to make sure that 
the Air Force complies with the requirements of section 2366a?
    Answer. If confirmed, I will advocate strongly for the nomination 
of a qualified acquisition executive. I will work to ensure we have the 
right people in place to oversee and address the maturity of 
technologies and work closely with USD(AT&L) on other initiatives.
    Question. GAO has reported that the use of unrealistically 
optimistic cost and schedule estimates by the Air Force and the other 
military departments is a major contributor to cost growth and program 
failure.
    Do you believe that the use of unrealistically optimistic cost and 
schedule estimates leads to program disruptions that drive up program 
costs and delay the fielding of major weapon systems?
    Answer. Yes, I do. Ensuring we have realistic weapon system cost 
and schedule estimates, to include a comprehensive understanding of 
total life-cycle costs, better informs decisionmakers as they manage 
current acquisition programs. Realistic estimates are critical to 
prevent pursuit of systems that are later abandoned or reduced in 
capabilities because of an unacceptably high cost. Cost and schedule 
estimating methodologies that combine historical data with the best 
information available on new industry and government acquisition 
practices produce more accurate estimates, preventing cost growth and 
fielding delays.
    Question. What steps do you believe the Air Force should take to 
ensure that cost and schedule estimates are fair and independent and 
provide a sound basis for Air Force programs?
    Answer. Since the passage of Weapon Systems Acquisition Reform Act 
of 2009, I believe the Air Force has made progress in improving the 
quality of its cost estimates and also in more rigorously budgeting to 
the best cost estimates. New policy guidance and procedures have been 
adopted that require annual, independent cost estimates on all major 
acquisition programs. This has resulted in more realistic, objective 
cost estimates in support of the budget process and acquisition 
decisions.
    Question. The Under Secretary of Defense for Acquisition, 
Technology and Logistics has issued a memorandum directing the military 
departments to institute new ``Configuration Steering Boards'' to 
review and approve new requirements that could add significantly to the 
costs of major systems.
    Do you support this process?
    Answer. I am not familiar with the USD(AT&L) Configuration Steering 
Board (CSB) policy memorandum. I understand, however, that CSBs are 
important to good program oversight and cost control. I also understand 
they are legislated requirements. If confirmed I will ensure the Air 
Force complies with all Federal statutes.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics has also issued a memorandum directing that 
the largest DOD acquisition programs undergo competitive prototyping to 
ensure technological maturity, reduce technical risk, validate designs, 
cost estimates, evaluate manufacturing processes, and refine 
requirements.
    Do you support this requirement?
    Answer. Yes, I support the requirement that the largest DOD 
acquisition programs undergo competitive prototyping, where practical 
and affordable.
    Question. Numerous acquisition reviews over the last decade have 
identified shortcomings and gaps in the acquisition workforce of DOD. 
Section 852 of the National Defense Authorization Act for Fiscal Year 
2008 established an Acquisition Workforce Development Fund to provide 
the resources needed to begin rebuilding the Department's corps of 
acquisition professionals.
    Do you believe that a properly sized workforce of appropriately 
trained acquisition professionals is essential if the Air Force is 
going to get good value for the expenditure of public resources?
    Answer. Yes, I do.
    Question. How would such a priority compete within the context of 
implementing sequestration?
    Answer. If confirmed, I will work to ensure the Air Force maintains 
a properly sized and well trained acquisition workforce, even in tough 
budgetary times.
                          contract management
    Question. By some estimates, DOD now spends more money every year 
for the acquisition of services than it does for the acquisition of 
products, including major weapon systems. Yet, the Department places 
far less emphasis on staffing, training, and managing the acquisition 
of services than it does on the acquisition of products.
    What steps, if any, do you believe the Air Force should take to 
improve the staffing, training, and management of its acquisition of 
services?
    Answer. I understand the Air Force is focused on improving its 
acquisition of services but I am not familiar with specific 
initiatives. If confirmed, I will work with Air Force leaders to assess 
the state of services acquisitions.
    Question. Do you agree that the Air Force should develop processes 
and systems to provide managers with access to information needed to 
conduct comprehensive spending analyses of Services contracts on an 
ongoing basis?
    Answer. I agree in principle, as decisionmakers must have sound 
metrics that guide their decisionmaking throughout the life cycle a 
program, but I would need to better understand the current state before 
offering a specific view.
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multi-agency contracts. DOD is by far the 
largest ordering agency under these contracts, accounting for 85 
percent of the dollars awarded under one of the largest programs. The 
DOD Inspector General (IG) and others have identified a long series of 
problems with interagency contracts, including lack of acquisition 
planning, inadequate competition, excessive use of time and materials 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance.
    What steps, if any, do you believe the Air Force should take to 
ensure that its use of interagency contracts complies with applicable 
DOD requirements and is in the best interests of the Department?
    Answer. If confirmed, I intend to dig more deeply into the analysis 
performed by the DOD IG and others or the specifics of their findings. 
If confirmed I would work with Air Force and DOD leaders to better 
understand the challenges associated with the implementation of 
interagency contracts, as well as the role and authorities of the Air 
Force in implementing them. I believe it is important to first 
understand the root causes of the challenges and the measures being 
implemented before offering any proposed solutions or corrective 
actions.
                   air force acquisition system flaws
    Question. Over the past several years, GAO protests have resulted 
in the reversal of a number of significant Air Force contract award 
decisions, including award decisions on the KC-X tanker replacement 
contract; the Combat Search and Rescue Helicopter Replacement Program 
(CSAR-X) contract; the C-130 Avionics Modernization Program (AMP) 
contract; the Small-Diameter Bomb contract; the Thunderbird video 
contract; and a contract for F-15 training simulators.
    Do you believe that significant problems remain in the Air Force 
acquisition system today?
    Answer. These reversals certainly point to problem areas. On the 
other hand, it is my understanding that the Air Force has made 
regaining acquisition excellence a top priority. I have seen strong 
evidence of this in its recent successes with the KC-46 Air Refueler, 
C-130J aircraft, Space Launch program and its rapid fielding of wartime 
capabilities, but this is an area that requires constant vigilance. If 
confirmed, I look forward to working with the Air Force Service 
Acquisition Executive to address these three issues and to make the 
pursuit of acquisition excellence among the Service's highest 
priorities.
    Question. If so, what are those problems and how would you propose 
to address them?
    Answer. It is my understanding that there are three major themes 
coming from the GAO protests of these programs. First, resources and 
requirements match. Achieving a high level of technology maturity by 
the start of system development is an important indicator of whether 
this match has been made. This means that the technologies needed to 
meet essential product requirements have been demonstrated to work in 
their intended environment. In addition, the developer has completed a 
preliminary design of the product that shows the design is feasible. 
Second, product design is stable. This point occurs when a program 
determines that a product's design will meet customer requirements, as 
well as cost, schedule, and reliability targets. A best practice is to 
achieve design stability at the system-level critical design review, 
usually held midway through system development. Completion of at least 
90 percent of engineering drawings at this point provides tangible 
evidence that the product's design is stable, and a prototype 
demonstration shows that the design is capable of meeting performance 
requirements. Third, manufacturing processes are mature. This point is 
achieved when it has been demonstrated that the developer can 
manufacture the product within cost, schedule, and quality targets. A 
best practice is to ensure that all critical manufacturing processes 
are in statistical control--that is, they are repeatable, sustainable, 
and capable of consistently producing parts within the product's 
quality tolerances and standards at the start of production. I can 
assure you that going forward I would apply the lessons learned from 
previous challenges and continue to pursue excellence within the 
acquisition portfolio.
    Question. If not, why do you believe that the Air Force has been 
the subject of so many adverse bid protest decisions?
    Answer. Not Applicable. See above answer.
                  expeditionary combat support system
    Question. An Air Force Acquisition Incident Review (AIR) team 
recently completed a report on the failure of the Air Force's 
Expeditionary Combat Support System (ECSS). The AIR report discusses 
root causes for ECSS's failure and includes several recommendations.
    Does the Air Force agree with the AIR team's findings?
    Answer. It is my understanding that the Air Force is in agreement 
with the AIR Team's findings. Several root causes and contributing 
problems were identified spanning near-to-long-term corrective actions 
related to governance and how the Air Force structures its business IT 
programs for success. If confirmed, I would ensure that the Air Force 
applies the lessons learned in the findings to current and future 
initiatives.
    Question. What is your understanding of the steps that the Air 
Force plans to take to implement the report's recommendations?
    Answer. It is my understanding that Air Force senior leaders are 
following through on the recommendations of the report. This includes a 
review of existing major Air Force business systems based on the AIR 
Team's specific findings and lessons learned.
                 encroachment on military installations
    Question. Various Air Force Bases have encroachment issues, some of 
which are significant. These include population growth near military 
installations, environmental constraints on military training ranges, 
airspace restrictions to accommodate civilian airlines, and conflicts 
with civilian users over the use of radio frequency spectrum.
    In your opinion, how serious are these problems for the Department 
of the Air Force?
    Answer. I believe these problems are quite serious. As I understand 
it, the Air Force is proactively working with State and local 
communities to address current and potential encroachment issues.
    Question. If confirmed, what policies or steps would you take to 
curtail the various encroachment issues?
    Answer. It is my opinion that encroachment issues are best resolved 
at the lowest level. The Air Force instituted an Air Force Encroachment 
Management (AFEM) program that provides an overarching framework to 
address potential impacts to Air Force missions, safety, the 
environment and critical infrastructure. This framework is designed to 
identify issues at the installation-community level; elevate when 
appropriate through Major Commands; then to the Headquarters Air Force 
staff which further assesses potential impacts and recommends ways to 
resolve or mitigate. If confirmed, I will emphasize to our installation 
leaders they must continue to proactively engage with local community 
leaders so they are aware of Air Force mission needs and identify ways 
to retain or improve mission compatibility.
    Question. If confirmed, what role do you expect to play in 
addressing these challenges?
    Answer. For those issues that are identified and assessed as posing 
significant adverse impact to critical Air Force missions; local, 
State, DOD, and other agency stakeholders will be made aware and I will 
provide guidance as appropriate.
            energy conservation and use of alternative fuels
    Question. In the past year, the Department of the Air Force has 
assumed a leadership role within the Federal Government for the 
advocacy, research, and testing of alternative fuels for use in 
military aircraft. In addition, the Air Force has encouraged proposals 
for the use of Federal property to construct refineries and power 
plants to include nuclear power.
    In your view, which energy alternatives, to include fossil fuels, 
offer the greatest potential for benefit to Air Force programs and 
operations?
    Answer. The Air Force needs to have assured access to reliable 
supplies of energy and the ability to protect and deliver sufficient 
energy to meet operational needs. Because of this, it is important for 
the Air Force to be flexible in the types of energy it can use and 
secure the quantities necessary to perform its missions, both for near-
term benefits and long-term energy security. This flexibility is 
important for both weapon systems and installations.
    Question. Do you support the goals adopted by the Air Force related 
to the increased use of alternative fuels? Does this include 
alternative fossil fuels?
    Answer. In principle, I support the Air Force's goal to broadly 
pursue alternative fuels that are cost competitive with traditional 
petroleum-based jet fuels and that meet environmental and technical 
specifications. I look forward to digging into this area more deeply, 
if confirmed.
    Question. In your opinion, what constraints does the Air Force face 
in carrying out initiatives to reduce reliance on fossil fuels?
    Answer. I feel that the benefits of energy investments should be 
carefully weighed against the initial and recurring costs. Doing so 
will allow energy initiatives to be evaluated and appropriately funded 
along with other Air Force priorities in order to maximize the use of 
Air Force resources.
                        investment in facilities
    Question. Air Force leaders have stated in testimony, ``MILCON is 
an essential enabler of Air Force missions; however, due to fiscal 
constraints, we must reduce funding and accept greater risk in 
facilities and infrastructure in order to continue our efforts to 
recapitalize and modernize our aging aircraft and equipment.''
    In your opinion, at what point is the reduction of funding for 
facilities and infrastructure too much of a risk for the Air Force?
    Answer. I believe Air Force installations are the platforms from 
which we fly, fight, and win in air, space, and cyberspace. Therefore, 
it is critical to balance risk to facilities and infrastructure against 
mission readiness. If confirmed, I will ensure Air Force leadership has 
the tools it needs to assess and mitigate risk to facilities and 
infrastructure, as well as airmen and mission, while ensuring we can 
deliver the decisive combat power this country expects.
    Question. If confirmed, would you support goals established by DOD 
for certain levels of funding dedicated to the recapitalization and 
sustainment of facilities?
    Answer. If confirmed, I would support DOD goals with respect to 
funding the recapitalization and sustainment of facilities. I fully 
understand, however, that in a fiscally constrained environment, the 
Air Force will have to continue to make challenging decisions to strike 
the right balance with respect to infrastructure requirements, 
readiness, and mission capability.
    Question. What is your position on the use of public-private 
ventures to address critical deficiencies in family housing and utility 
infrastructure?
    Answer. I have seen this approach work very well in some 
localities. If confirmed, I will evaluate any and all opportunities 
available to bring airmen and their families the exceptional housing 
and installation infrastructure they deserve.
                           long-range bombers
    Question. The B-1s, B-2s, and B-52s will begin to be retired in the 
2030 timeframe.
    When do you believe that the United States needs to develop a new 
manned bomber?
    Answer. I understand the new bomber is in the top 3 of Air Force 
modernization priorities. Given the aging bomber fleet and what I 
understand about the nature of the future threat environment it is 
important that the Air Force make the appropriate investments today to 
ensure a viable warfighting capability in the mid-2020 timeframe.
    Question. Do you believe the Air Force needs to continue to manage 
the Long-Range Strike-Bomber Program as a special access program? If 
so, why?
    Answer. It is my understanding that enhanced security is important 
to protecting critical technologies and capabilities.
    Question. Do you believe that, regardless, it needs a reporting 
structure in content similar to the Selected Acquisition Reports?
    Answer. Yes. If confirmed, I will work with Air Force and DOD 
leaders to ensure the Service provides information on the Long-Range 
Strike-Bomber consistent with Selected Acquisition Reports at the 
Special Access Program level.
                         nro and the air force
    Question. The responsibilities of the Director of the National 
Reconnaissance Office (NRO) were once included in the responsibilities 
of the Under Secretary of the Air Force. Dual-hatting the Under 
Secretary ensured that there was close cooperation between the NRO and 
the Air Force.
    What steps would you take, if confirmed, to ensure that DOD space 
programs and NRO programs are managed in a coordinated fashion?
    Answer. Currently there are various relationships and mechanisms in 
place that ensure DOD and NRO space programs are managed in a 
coordinated fashion. The Deputy Director of the NRO is an Air Force 
General Officer who in his role as the Commander, Air Force Element, 
manages all Air Force personnel and resources assigned to the NRO and 
serves as the senior adviser to the Director of the NRO on all military 
matters.
    If confirmed, I would be dual hatted as the Executive Agent for 
Space and in that role would be responsible, in coordination with 
USD(I), for fostering a close working relationship between DOD and the 
Intelligence Community with regards to space programs. In the 
Secretary's role as the Executive Agent for Space I would also chair 
the Defense Space Council (DSC) where I would have the responsibility 
of achieving unity of effort across the DOD space enterprise. The 
National Reconnaissance Office is a member of the DSC while the Office 
of the Director of National Intelligence is also regularly represented. 
Other forums which meet several times a year, such as the Air Force/
NASA/NRO Summit, reconfirm the mission interrelationships and foster 
collaboration and synchronization in areas of mutual interest. As the 
Secretary of the Air Force and the DOD Executive Agent for Space I 
intend to continue to use these and other forums to maintain a close 
relationship with the NRO and the Intelligence Community.
    Question. The Air Force rotates personnel through the NRO, which 
has proven useful in developing synergy between space programs serving 
both intelligence and military needs. Proposals have been given to 
develop a core set of personnel at the NRO which maintains core service 
functions and maintains a long-term institutional memory and 
capability.
    Would you support this proposal by putting a subset of Air Force 
personnel on a long-term basis at the NRO?
    Answer. The Air Force has historically had a close working 
relationship with the NRO. If confirmed, I look forward to continuing 
this working relationship with rotations of Air Force personnel through 
the NRO. Overall it is important to create a cadre of space 
professionals with breadth of knowledge across mission areas balanced 
with technical depth and focused mission expertise as required. I also 
look forward to working with Air Force and NRO leadership to determine 
the best balance of meeting mission needs while developing a robust 
space professional cadre.
                           space acquisition
    Question. If confirmed, how would you propose to ensure that the 
space acquisition process is successfully revamped to deliver future 
systems within promised costs and schedules?
    Answer. Continuing to improve the space acquisition process is a 
priority for the Air Force and for the DOD. If confirmed, I will 
continue to support space acquisition process improvement, in the 
spirit of the Weapon System Acquisition Reform Act and in cooperation 
with the USD(AT&L).
    Question. Milestone decision authority for space programs currently 
resides with the Under Secretary of Defense for Acquisition, Technology 
and Logistics. If confirmed will you seek to return this authority to 
the Air Force or are you comfortable with this authority residing with 
the Under Secretary?
    Answer. I am unfamiliar with the background associated with the 
decision to place the milestone decision authority for space programs 
with the USD(AT&L). I do understand many of these capabilities exist to 
support national security objectives. If confirmed, I look forward to 
working with the Under Secretary in managing and delivering space 
capabilities to the warfighter.
    Question. The Air Force is developing a New Entrant strategy for 
medium and heavy launch of military and intelligence payloads. Do you 
support the NRO developing a separate new Entrant strategy different 
from what the Air Force is developing?
    Answer. At this time, I am unfamiliar the specifics and current 
agreements associated with the Air Force and NRO new entrant 
strategies. If confirmed, I will make it a priority to understand the 
Air Force and NRO new entrant strategies, their differences and 
opportunities to partner together to ensure success in the Service and 
NRO missions.
                    air force science and technology
    Question. What metrics will you use to assess the effectiveness of 
the Air Force science and technology programs?
    Answer. I understand the Air Force Scientific Advisory Board (SAB) 
conducts in-depth reviews of the Air Force Research Laboratory's 
science and technology portfolio. If confirmed I will consult with the 
SAB to learn more about their ratings and seek their advice to help 
guide and improve the effectiveness of our Air Force science and 
technology programs.
    Question. What metrics will you use to assess the effectiveness of 
the Air Force's basic research programs?
    Answer. If confirmed, I would make it a priority to identify, 
nurture and harvest the best basic research to transform leading-edge 
scientific discoveries into new technologies with substantial military 
potential. Combined with this focus I would ensure the appropriate 
effectiveness metrics are in place.
    Question. Do you believe the current balance between short- and 
long-term research is appropriate to meet current and future Air Force 
needs?
    Answer. At this time, I am unfamiliar with the specifics of the Air 
Force's investment balance between short- and long-term research. If 
confirmed I look forward to assessing the Air Force's Science and 
Technology (S&T) Program investments to attain a balance between near-
term quick-reaction capabilities; mid-term modernization technologies 
and long-term revolutionary technologies.
    Question. What metrics will you use to assess the adequacy of 
investment levels in Air Force science and technology programs?
    Answer. At this time, I am unfamiliar with the Air Force's 
investment levels in Air Force science and technology programs or the 
metrics used to assess the adequacy of those investments. If confirmed 
I would make it a priority to execute a balanced, integrated S&T 
program that supports the current fight while advancing breakthrough 
S&T for tomorrow's fight, ensuring adequate funding in basic research 
and the right level of investment to mature technologies for transition 
into acquisition programs.
    Question. What role do investments in science and technology play 
in reducing costs and technical risk of acquisition programs?
    Answer. It is my understanding that Air Force investments in 
science and technology leverage research and development efforts within 
academia and industry, including small businesses and government 
laboratories, all of which help lower risk in Air Force acquisition 
programs.
                          test and evaluation
    Question. What are your views on the effectiveness of the Air 
Force's test and evaluation activities?
    Answer. I am not yet able to assess the effectiveness of the Air 
Force's Test and Evaluation (T&E) activities, but if confirmed, I would 
be committed to a sustaining a vibrant test and evaluation program. 
This capability is crucial to Air Force acquisition programs, tactics, 
techniques and procedures development, and assessing the combat 
capability of forces.
    Question. What are the major weaknesses and deficiencies with the 
Air Force test and evaluation enterprise in meeting current and 
emerging Air Force testing requirements?
    Answer. I am not in a position to assess major weaknesses and 
deficiencies in the Air Force T&E enterprise at this time. If 
confirmed, I will work with Air Force and DOD leadership to ensure the 
Air Force is prepared for current and emerging test and evaluation 
requirements.
    Question. The Air Force has recently contemplated a number of steps 
to reorganize both development and operational test activities. Some of 
these proposals included significant government and contractor 
workforce reductions and potential closures of test assets.
    If confirmed, what actions would you take to ensure that any 
reorganizations or closure of test assets or reductions in test 
workforce result in actual cost reductions and do not entail undue risk 
to Air Force or other DOD current or future acquisition programs?
    Answer. If confirmed, I will work with the acquisition and T&E 
communities to establish a formal relationship between modernization 
priorities and T&E resources, so that the Air Force has a logical, 
defensible T&E program to fully support the needs of our highest 
priority acquisitions.
    Question. What is your view of the role of the Director of 
Operational Test and Evaluation (DOT&E), the Deputy Assistant Secretary 
of Defense (DASD(DT&E)), Developmental Test and Evaluation and the 
Director of the Test Resource Management Center (TRMC) in ensuring that 
such reductions do not undermine the ability of the Air Force to carry 
out needed test programs?
    Answer. It is my understanding that the DASD(DT&E) and the 
Director, TRMC for developmental testing, and DOT&E for operational 
testing, play an important role in ensuring the Air Force T&E program 
is responsive to the needs for Developmental and Operational Testing 
(DT and OT) for the Department's oversight acquisition programs. If 
confirmed, I will work closely with these oversight organizations to 
ensure the Air Force provides all of the support necessary to ensure 
successful DT and OT for acquisition programs.
    Question. The Air Force has some unique requirements with regard to 
prompt global reach and affordable, responsive space lift missions.
    In your view, are changes in current test range structure, 
operations, and mission assurance parameters required to accommodate 
Air Force experimentation and small launch needs?
    Answer. I am not familiar with this area at this time. If 
confirmed, I will evaluate launch ranges with respect to the Air 
Force's experimentation and small launch needs.
                    air force research laboratories
    Question. What are the major challenges facing the Air Force 
Research Laboratory?
    Answer. If confirmed, I look forward to learning more about 
specific Air Force Research Laboratory challenges and providing my 
leadership to help overcome them.
    Question. How do you plan to address these challenges?
    Answer. If confirmed, I will actively work with Science and 
Technology and Laboratory leadership to address challenges and 
encourage continued innovation.
    Question. Are you supportive of efforts of the Air Force Research 
Laboratory to expand and enhance their unique laboratory personnel 
demonstration program to ensure that they can attract and retain the 
finest technical workforce?
    Answer. Yes. While I am not aware of the specifics of the Lab 
Demonstration Program, from past experiences it is clear the Air Force 
Research Laboratory operates in a very competitive market for highly-
qualified scientist, technologist, engineer, and mathematician (STEM) 
talent. With domestic and international competition for people with 
these skills intensifying, I support efforts to actively attract and 
retain STEM talent.
        airborne intelligence, surveillance, and reconnaissance
    Question. The airborne intelligence, surveillance, and 
reconnaissance (ISR) assets developed and operated by the Air Force 
form an indispensable part of the Nation's overall intelligence 
architecture. These assets are often referred to as high demand, low 
density systems because of the extensive number of requirements and 
high operational tempo on their systems and crews.
    In your view, does the Air Force have sufficient airborne ISR 
assets to meet current and projected requirements?
    Answer. My understanding is there are not enough assets to meet all 
the requests of the combatant commanders (COCOMs). However, the Air 
Force meets the highest priority demands.
    Question. What changes would you recommend, if confirmed, to 
current plans for the development and acquisition of airborne ISR 
platforms? Will these changes remove ISR platforms from the ``high-
demand, low-density'' category?
    Answer. In this fiscal environment, my goal would be to ensure we 
maintain our ISR capabilities to provide decisive advantages to COCOMs. 
I would also enhance, if fiscally possible, our current ISR 
capabilities with advanced technologies and improved interoperability 
between existing ISR systems, to include those in the joint arena, to 
ensure our ISR dominance. However, it still may not be possible to 
satisfy all COCOM ISR demands.
                          u.s. africa command
    Question. On numerous occasions, the committee has expressed 
concern that the Commander of U.S. Africa Command (AFRICOM) lacks the 
necessary air support to execute effectively his mission in a continent 
comprised of 53 countries, spanning a geographic area larger than the 
United States, China, and Western Europe combined. The Commander of 
AFRICOM recently indicated before the Air Force Defense Strategy 
Seminar this shortage of aircraft remains.
    If confirmed, what would you do to support AFRICOM, given the 
demand on existing assets within other geographic combatant command 
AORs?
    Answer. If confirmed, I look forward to working closely with 
AFRICOM and the other combatant commanders to ensure requirements are 
met.
    The demands for airpower are likely to continue to exceed the 
resources available. The requirements of each combatant commander are 
adjudicated through what I understand to be a fair and consistent 
process based on national priorities.
                            nuclear matters
    Question. Based on the 2007 Minot incident, Air Force has 
exhaustively studied and made strong organizational changes to its 
management of the nuclear weapons it is charged with maintaining and 
deploying.
    What will you do to strengthen the nuclear programs at the Air 
Force Weapons School for airmen who choose a long-term career to 
maintain and deploy nuclear weapons beyond the few that currently 
attend it?
    Answer. The nuclear mission is vital to the Air Force and the 
Nation and we cannot succeed in it without highly trained personnel. If 
confirmed, I will explore ways to strengthen the nuclear programs at 
the Air Force Weapons School. Additionally, I look forward to visiting 
the Intercontinental Ballistic Missile Weapons Squadron in the near 
future.
    Question. The Air Force is the primary maintainer and implementer 
of the Nuclear Command, Control and Communications (NC3) System. This 
NC3 system is aging, yet it is vitally important to ensuring the 
President has direct control over nuclear weapons and their use. The 
cost overruns and failure in deploying the Family of Beyond Line of 
Sight Terminals (FAB-T) on nuclear capable airborne delivery platforms 
reflects poorly on the Air Force's first foray with a new generation of 
NC3 acquisition programs.
    What actions will you take to ensure the FAB-T acquisition program 
corrects its cost over runs and eventually is deployed on airborne 
platforms?
    Answer. Strengthening the Nuclear Enterprise is a top Air Force 
priority. I also understand that NC3 systems are important to the 
effectiveness of that mission. If confirmed, I look forward to working 
with Air Force leaders to learn more about FAB-T and other NC3 
acquisition programs and to ensure that they are properly executed in 
this tight fiscal environment.
    Question. What actions will you take to ensure there is a long-term 
road map and acquisition strategy to ensure the NC3 system meets 
requirements consistent with the President's recent Nuclear Employment 
Strategy?
    Answer. I understand the Air Force is currently working with DOD in 
support of its effort to develop an NC3 architecture to support the 
President's recently updated nuclear employment strategy. Once 
finalized, the Air Force will develop an Air Force specific roadmap 
that supports the new architecture. In the meantime, the Air Force is 
refining a NC3 Sustainment Roadmap to provide a more comprehensive 
approach to sustaining current Air Force NC3 systems.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic communications, in a timely manner when requested by a duly 
constituted committee, or to consult with the committee regarding the 
basis for any good faith delay or denial in providing such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Mark Udall
                        air force modernization
    1. Senator Udall. Ms. James, you mentioned in your advance policy 
questions that one of your priorities is to balance today's readiness 
with tomorrow's modernization needs. Would you expand on some of the 
ways you'd propose to achieve that balance?
    Ms. James. I am concerned about today's readiness and believe we 
need to reinvest in this area to make up for the impacts of fiscal year 
2013 sequestration. Keeping a ready force today is essential to ensure 
the Air Force can answer the call. At the same time, I believe the Air 
Force should continue its long-term recapitalization effort with an 
emphasis on developing the capabilities the Service uniquely provides 
to the Joint Force; such as, global/long-range and non-permissive 
capabilities, exemplified in the F-35, Long-Range Strike Bomber, and 
KC-46A programs.

    2. Senator Udall. Ms. James, what do you see as the Air Force's 
core missions--and are there any missions or systems that you believe 
the Air Force should divest?
    Ms. James. Airmen bring to the Nation's military portfolio, five 
interdependent and integrated core missions that have endured since 
President Truman originally assigned airpower roles and missions to the 
Air Force in 1947. These are: air and space superiority; intelligence, 
surveillance, and reconnaissance; rapid global mobility; global strike; 
and command and control. although the way the Air Force performs these 
mission swill constantly evolve, the Air Force will continue to perform 
these missions so that our military can respond quickly and 
appropriately o unpredictable threats and challenges. If confirmed, I 
will carefully review all systems.

                        air force space systems
    3. Senator Udall. Ms. James, for fiscal year 2013 the 
administration proposed terminating the Operationally Responsive Space 
program, which the Senate Armed Services Committee (SASC) rejected. In 
fiscal year 2014, the administration again proposed to terminate the 
office and once again, SASC rejected this proposal. I understand that 
we are in a stark fiscal crisis but I hope the Air Force takes into 
account that this office is the one that first proposed low cost, quick 
to build satellite coupled with a low cost launch. If confirmed, I want 
you to realize that from the SASC perspective it does not look good to 
terminate one of the few programs that may actually reduce the cost of 
space systems in a time of sequestration. Will you commit to re-examine 
any such proposals for fiscal year 2015?
    Ms. James. Yes, I give you this commitment, if confirmed.

    4. Senator Udall. Ms. James, General Shelton has mentioned 
previously to the Strategic Forces Subcommittee that space systems and 
ground systems are usually contracted for and managed separately. This 
has resulted in disconnects between two programs that should be fully 
integrated. As we look to reduce costs and redundancies, will you agree 
to take a hard look at how we do space acquisition in order to achieve 
savings and speed up delivery?
    Ms. James. Yes. Although I am not familiar with General Shelton's 
comments, I believe that continuing to improve the space acquisition 
process is a priority for the Air force and for the Department of 
Defense (DOD).
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan
    future scientists and engineers for dod and the defense industry
    5. Senator Hagan. Ms. James, DOD and the defense industry are 
facing challenges seeking new graduates with advanced degrees in 
scientific and technical fields to help develop complex military 
systems. Some of these challenges include a lack of interest in 
traditional defense sectors by new graduates, Federal hiring issues, 
budget pressure, the length that typical defense programs take to 
execute, and competition for talent with other government agencies. If 
confirmed, what would you do to ensure that DOD has access to the best 
and brightest future scientific and technical talent?
    Ms. James. I have been made aware of the science, technology, 
engineering and mathematics (STEM) workforce challenges facing our 
Nation and particularly the U.S. Air Force. If confirmed, I will convey 
to airmen the need to improve technical skills and do my best to 
inspire youth to pursue STEM disciplines and an Air Force career.
    It's my understanding that the former Air Force Secretary and Chief 
signed an Air Force STEM Workforce Strategic Roadmap called Bright 
Horizons and that the Air Force is currently updating that document to 
capture progress made and new initiatives. If confirmed, I plan to 
review the Air Force's updated plan and ensure the Service implements a 
STEM Roadmap which optimizes its scientific and technical skills base.

    6. Senator Hagan. Ms. James, how would you measure the 
effectiveness of these efforts?
    Ms. James. I understand that the Air Force tracks the number of 
publications accomplished linked to research funding, as well as 
students supported by our funding outreach activities. If confirmed, I 
will make sure such measurements continue so as to drive business 
behaviors across the Air Force that are consistent with the vision and 
goals of the updated Air Force STEM Workforce Strategic Roadmap.

                 modular airborne fire fighting system
    7. Senator Hagan. Ms. James, the Air Guard and the Air Force 
Reserve have been successfully flying and controlling the Modular 
Airborne Fire Fighting System (MAFFS) mission to combat wildfires for 
over 40 years. One reason this mission is so successful is the fact 
that Reserve component personnel have had the opportunity to volunteer 
in a variety of statuses, most importantly under title 32. However, the 
Assistant Secretary of Defense for Homeland Defense (and his deputy) 
are now attempting to make MAFFS a title 10 mission, not a title 32 
502(f) status National Guard controlled mission, even if/when a Dual 
Status Commander is available for 2014. This would bring numerous 
negative personnel issues and command and control issues, possibly 
compromising the mission. All three States that fly MAFFS: North 
Carolina, Wyoming, and California, and the National Guard Association 
oppose this move as needlessly restrictive. Seeing as the National 
Guard has been flying and controlling this mission for 40 years and the 
Air Force has determined MAFFS is best suited for the Reserve 
component, will you support continuing the use of title 32 as the 
primary duty status for the MAFFS mission?
    Ms. James. I am not familiar with this program. However, if 
confirmed I will work closely with the Assistant Secretary of Defense 
for Homeland Defense and America's Security Affairs to resolve the 
personnel and command and control issues to ensure Air Reserve 
component airmen have the flexibility and proper authority to support 
the MAFFS mission.

                     information support squadrons
    8. Senator Hagan. Ms. James, with the constant threat of cyber 
attacks upon governmental organizations and commercial enterprises, 
there is a high demand for personnel with the training and experience 
to successfully protect our Nation's secrets and infrastructure. This 
demand leads to a very competitive market for such expertise, a market 
in which the playing field is certainly not level for Government 
agencies, such as DOD, in terms of matching compensation with civilian 
competitors. But there is one positive option for DOD in attracting and 
retaining such personnel, and that is with the National Guard, where 
its servicemembers can aspire to have a civilian career while 
simultaneously serving one's country. In this environment, will you 
support the placement of Information Support Squadrons for cyber 
operations within the National Guard?
    Ms. James. As a general principle, I believe Guard and Reserve 
personnel in our Total Force bring cyber expertise from private 
industry that is critical to our Nation's and Air Force cyber 
operations. The 262nd Network Warfare Squadron, a guard squadron 
supporting the Active 688th Cyberspace Wing, is an example of an Air 
National Guard (ANG) unit that is one of our Air Force's premier cyber 
operations squadrons made up of personnel who work in the commercial IT 
industry and also serve as a guardsman. I will explore the opportunity 
of doing more, if confirmed.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                             mental health
    9. Senator Gillibrand. Ms. James, if confirmed, what will you do to 
ensure the Air Force is providing appropriate mental health care to 
airmen and their families?
    Ms. James. The Air Force's focus is on provision of quality and 
timely mental health support for airmen and their families. This same 
support extends to all military servicemembers and families wherever 
they are supported by Air Force hospitals and clinics. Meeting the 
operational mental health needs of our servicemembers will be one of my 
top priorities. I will ensure integration of mental health support with 
our community partners to identify sources of stress and help reduce 
the impacts of stress to promote health and family wellness. I will 
place strong emphasis on a tightly coordinated program of mental health 
support between the three military medical services, the TRICARE 
network, and the Department of Veterans Affairs to provide a full scope 
of mental health services for our airmen and their families.

                                 cyber
    10. Senator Gillibrand. Ms. James, the Air Force is scheduled to 
add more than 1,000 cyber professionals between fiscal years 2014 and 
2016. In light of sequestration and current budgetary constraints do 
you foresee being able to meet these goals?
    Ms. James. I certainly hope so, as I believe this to be an 
important area. However, the Air Force could face significant 
challenges depending on the outcome of budget deliberations and whether 
there is a Continuing Resolution or full appropriation in fiscal year 
2014.

    11. Senator Gillibrand. Ms. James, do you see room for cost savings 
in using more of the National Guard and Reserves to build your cyber 
force?
    Ms. James. The cyber mission strikes me as a good one for the 
National Guard and Reserve. If confirmed, I will delve into this more 
deeply. I also would like to explore ways to better identify new 
recruits who may have a particular aptitude for the cyber mission. 
Finally, it may be appropriate to target bonuses and advertising 
resources to this career area.

    12. Senator Gillibrand. Ms. James, the cyber field is a fast-paced, 
ever-changing arena. If confirmed, what steps will you take to ensure 
we are recruiting the best and the brightest to this field?
    Ms. James. I am aware the Air Force advocates and supports 
cyberspace and computer training and education programs nationwide to 
encourage high school and college students towards technical career 
fields. This strikes me as a good start. I look forward to working on 
this area, if confirmed.

    13. Senator Gillibrand. Ms. James, what authorities will be needed 
to keep the U.S. military on the cutting edge of cyber?
    Ms. James. I am not aware of any current gaps in authorities; 
however, if confirmed, I will need to review this area fully.
                                 ______
                                 
             Questions Submitted by Senator Mazie K. Hirono
                               readiness
    14. Senator Hirono. Ms. James, what are the impacts of 
sequestration on recruitment and retention for the uniformed military?
    Ms. James. I don't have the exact figures, and it may be too early 
to tell, but I would expect some adverse impacts to Air Force 
recruiting in light of budget cuts to advertising, marketing and 
outreach programs.

    15. Senator Hirono. Ms. James, for our valued civil servants in 
DOD, the furloughs have created difficult situations for many. What are 
the impacts on recruitment and retention of our civil service 
employees?
    Ms. James. I believe the most significant immediate impact of 
furlough has been on morale of the workforce. I also understand the Air 
Force expects a surge in retirements that could lead to one of the 
largest retirement years in recent memory. Furloughs, continued pay 
freezes, and reductions in force could have long-term effects on the 
workforce and recruitment if future furloughs occur.

                        rebalance to the pacific
    16. Senator Hirono. Ms. James, the Air Force will continue to play 
a significant role within the U.S. Pacific Command team as we move 
forward with the Pacific rebalance. What is your view of the Air 
Force's role in the future?
    Ms. James. The U.S. Air Force will rebalance toward the Asia-
Pacific region in conjunction with other regional and global 
commitments. The Air Force will continue to play a vital role in 
securing U.S. economic and security interests in the Pacific region. 
Specifically, the preservation of peace, stability, and the free flow 
of commerce in the Pacific region will be a top U.S. priority.

    17. Senator Hirono. Ms. James, how important will total force 
integration be to continue and where possible expand the partnership 
between the Active Duty and Reserve components?
    Ms. James. Total Force Integration is essential to reinforce the 
interdependencies between Active and Reserve components of the Air 
Force. Collaboration between Air Force leadership from both the Active 
and Reserve components is and will remain vital to building a Total 
Force Air Force that delivers air, space, and cyber power that the 
Nation and the joint force have come to expect from our Air Force; this 
is especially true in an environment of decreasing resources.

                            command climate
    18. Senator Hirono. Ms. James, a command climate survey can go a 
long way in determining how effective a unit is and whether or not 
negative actions such as sexual harassment are tolerated and/or 
reported. What is your opinion of the current climate surveys?
    Ms. James. I understand that the Air Force Climate Survey is 
conducted biennially and, if confirmed, the results will be briefed to 
me and released to the units. Commanders with 10 or more respondents 
are provided survey results along with a guide containing specific 
recommendations and lists of resources to improve their unit climate. 
If confirmed, I will review the survey more fully to see if there are 
needed improvements.

    19. Senator Hirono. Ms. James, should climate surveys be kept to 
monitor potential long-term issues?
    Ms. James. I believe so. Unit Climate Assessments are essential to 
monitoring the engagement of the organization, and electronic copies of 
organizational climate surveys are maintained by the Equal Opportunity 
Office. Additionally, climate surveys should be maintained by 
commanders to monitor trends, to track progress on recommended actions, 
and to address long-term issues which cannot be promptly resolved. 
Commanders are encouraged to pass climate survey results to incoming 
commanders to ensure continuity on long-term issues.

    20. Senator Hirono. Ms. James, should climate surveys be tied to 
the commander's permanent personnel records so as to monitor 
performance as a leader? What about other assessments such as 360 
evaluations?
    Ms. James. I am very interested in tying climate surveys to 
performance reviews and I am told DOD is currently evaluating the 
methods used to assess the performance of military commanders for 
establishing command climates of dignity and respect and incorporating 
Sexual Assault Prevention and Response into their commands to ensure 
standardization across the Services.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                          air force readiness
    21. Senator Inhofe. Ms. James, what are your thoughts on tiered 
readiness and the ability of the Air Force to meet combatant commander 
(COCOM) requirements, maintain overall readiness, and the impact to 
morale and retention of personal?
    Ms. James. According to the briefings I have received so far, I am 
told the Air Force cannot maintain a tiered-readiness posture and still 
meet the current defense guidance. That said, the Air Force may have 
reached a point where large force structure cannot be sustained at 
requisite readiness levels while also preserving critical modernization 
programs needed for the future. This is a very difficult problem to 
resolve going forward and one that I will need to study carefully, if 
confirmed.

    22. Senator Inhofe. Ms. James, based on current and projected 
readiness levels of the Air Force, do you believe the Air Force can 
meet current COCOM Operational Plan requirements? You may provide a 
classified answer for the record if you chose.
    Ms. James. The Chief of Staff stated in a September 16 interview 
with Air Force Times, ``There is not a mission that the Nation could 
ask that the Air Force would not be capable of doing.'' I believe this 
statement is accurate. However, I am concerned that if readiness is 
lessened the Air Force may have to perform missions with greater risk, 
and I prefer this not happen.

    23. Senator Inhofe. Ms. James, depot maintenance has been delayed 
on our aircraft--equipment that is on average over 20 years old and 
worn down by over a decade of war. Based on your experience both in DOD 
and out in industry, how does this impact the readiness and safety of 
the Air Force?
    Ms. James. Based on my experience, I believe the impacts caused by 
fiscal year 20l3 reduction in depot maintenance will likely impact 
future aircraft availability/sortie generation rates, thereby 
negatively affecting overall readiness recovery efforts. The depot 
recovery from sequestration will likely require a multi-year effort and 
additional funding to halt the decline in aircraft availability.
    Regarding safety, I know the Air Force considers safety a top 
priority in all operations and strives to mitigate and manage risk.

    24. Senator Inhofe. Ms. James, has DOD budgeted additional money in 
fiscal year 2014 to pay for delayed fiscal year 2013 Air Force depot 
maintenance?
    Ms. James. My understanding is the Air Force has not budgeted 
additional money in fiscal year 2014 to pay for delayed fiscal year 
2013 depot maintenance requirements. The delayed requirements have been 
added to the overall 2014 depot maintenance program and will be 
prioritized against the remaining weapon system sustainment portfolio 
to best maximize warfighter readiness based on available fiscal 
resources.

    25. Senator Inhofe. Ms. James, what is your assessment of the F-35 
program as it is executing today based on budget and schedule?
    Ms. James. It is my understanding that the program went through a 
technical baseline review a few years ago and since then has been 
tracking well to its planned schedule baseline. It has been reported 
that the recent Low Rate Initial Production contract awards have 
resulted in reductions to air vehicle costs. Based upon that, it would 
seem the program should be executing below cost. Efforts to address 
technical issues and life cycle costs are encouraging, but I understand 
that software remains a watch-item. Additionally, I'm aware that the 
DOD Inspector General conducted a quality assurance assessment on the 
program. In their report, they assessed the Government's oversight of 
the contractor as inadequate and ineffective which is a concern to me. 
If confirmed, I look forward to reviewing the program to see firsthand 
how well it is executing to its cost, schedule, and technical 
performance baselines.

    26. Senator Inhofe. Ms. James, is the F-35 needed to meet U.S. 
national security requirements?
    Ms. James. Yes. The F-35 represents the future of the Air Force 
fighter fleet. It will provide critical capabilities required to 
accomplish Air Force missions in the threat environment of the future, 
and enables true Joint and Coalition operations. The air superiority 
this Nation has enjoyed for 60 years is not an accident and gaining and 
maintaining it is not easy. It requires trained proficient and ready 
airmen and it requires credible, capable and technologically superior 
aircraft. The F-35 is essential to ensuring we can provide that air 
superiority in the future.

    27. Senator Inhofe. Ms. James, what is the impact if the United 
States cuts the number of F-35s it plans to procure?
    Ms. James. It is my understanding that a cut in the procurement of 
F-35s will increase the per-unit cost. Therefore, the impact to the 
overall cost will depend upon the final number of aircraft to be 
procured.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                        small business contracts
    28. Senator Chambliss. Ms. James, while I appreciate and support 
the objectives and intent of the Small Business Act, I am concerned 
that often the requirement to reach a small business percentage goal 
outweighs the requirement to produce the most effective products and 
services for our warfighters. This goal to achieve a certain percentage 
quota for small businesses can lead to inappropriate pressure being 
brought to bear on defense contracting officers to make decisions which 
result in the government buying a product or service at higher total 
procurement cost.
    In some instances, these pressures are contrary to existing 
provisions of the Federal Acquisition Regulations (FAR) that contain 
specific exceptions allowing contracting officers' greater flexibility 
for specified contract tasks. Unfortunately, I am aware of cases in 
which these exceptions are not considered or are improperly excluded 
during the contract review process.
    In particular, FAR 6.302.3 (Exception 3) applies specifically to 
engineering, research, or development capabilities that are provided to 
the Government by an educational or other nonprofit institution or a 
Federally Funded Research and Development Center. These contracts do 
not compete with large or small businesses and are well-recognized by 
the Air Force as providing unique capabilities at very low costs. 
Often, these Exception 3 contracts deliver a work product that is 
itself used to generate contract solicitations for small businesses.
    In this climate of tight budgets, the Air Force must take full 
advantage of the best products or services at lower costs. University 
research, engineering, or development centers which are non-profit can 
provide these lower costs with greater continuity in expertise, 
unbiased analysis, along with advanced academic training. The Air Force 
has long acknowledged that we must improve the training available to 
both current and future government employees so that they will be 
better prepared to do their jobs. That is another reason that the 
Exception 3 academic component is part of the FAR provisions.
    To this end, the Air Force should establish a plan in which 
contracts awarded under a valid FAR Exception 3 are not counted against 
the percentage of total awards made to small businesses when 
determining small business set-aside, award goals.
    Furthermore, the Secretary of the Air Force, through the Small 
Business Programs office, should immediately direct local Air Force 
commands to educate, emphasize, and enforce the intent of FAR 
exceptions and make it clear to both local Procurement Contracting 
Officers and Small Business Offices that valid FAR 6.302 Exception 3 
contracts are not subject to Small Business disapproval because they 
are viewed as detracting from small business contracting goals.
    If confirmed, do you believe that you can create a system where 
awards made under a FAR Subpart 6.302 Exceptions 3 will not count 
against Air Force small business percentage goals?
    Ms. James. As I understand it, the methodology for what is or is 
not counted in the Small Business Goaling percentage is established by 
the Small Business Act and its implementing regulations and policies. 
The type of action you propose may require a change in legislation 
(i.e., Small Business Act). If confirmed, I will look into the issue 
more closely.

    29. Senator Chambliss. Ms. James, if confirmed, will you and your 
Small Business Programs office, in the next 90 days, work directly with 
my staff to craft a solution that ensures the Air Force will actively 
enforce the intent of FAR 6.302 Exceptions 3 so that we are not 
excluding a valid process that results in lower total procurement 
costs?
    Ms. James. If confirmed, I will look into FAR 6.302-3 sole source 
exceptions to ensure processes are being followed according to all laws 
and regulations.

    30. Senator Chambliss. Ms. James, within 180 days, will you 
establish a Service-wide directive where awards made under FAR 6.302 
Exception 3 are not subject to local Small Business office review for 
approval and allocation to small business contracting quotas if this 
valid exception is considered to be in the best interest of the 
Government as determined by the Government requirements and procurement 
personnel?
    Ms. James. I will certainly review the policies under the Small 
Business Act, Section 8, 15, and 31 and FAR 19.402 and consult with the 
Small Business Administration regarding their statutory and regulatory 
policies on this issue.

    31. Senator Chambliss. Ms. James, in accordance with FAR 19.702, 
since subcontracting plans are required for solicitations greater than 
$650,000 ($1.5 million for construction), and because prime contractors 
are required to electronically submit subcontractor reports (SF 294 and 
SF 295) after award, will the Air Force include dollar totals from 
these subcontractor reports towards the small business goals since the 
subcontracts are also federally funded and the data is already 
available?
    Ms. James. As I understand it, IAW FAR 19.702, they will count 
towards the Subcontracting Goals.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                              a-10 warthog
    32. Senator Ayotte. Ms. James, has the Air Force made the decision 
to divest A-10s from the Air Force inventory?
    Ms. James. To the best of my knowledge, no final decisions have 
been made. This question is predecisonal (and I am not privy to 
predecisional matters).

    33. Senator Ayotte. Ms. James, has General Welsh signed the fiscal 
year 2015 program objective memorandum (POM) and does it call for the 
divestment of A-10s by 2015?
    Ms. James. I don't know. However, I do know that Air Force budget 
decisions are not final at this point, as they have yet to go through 
the full process.

    34. Senator Ayotte. Ms. James, is the divestment of the A-10 
primarily a budget-driven decision or does the Air Force believe the A-
10 is no longer needed for the close air support mission? If the Air 
Force believes the A-10 is no longer needed, please provide a detailed 
justification.
    Ms. James. I have not been briefed on the fiscal year 2015 POM, but 
it my understanding there are other weapon systems in the Air Force 
inventory that provide capabilities similar to that of the A-10. If 
confirmed, I will explore the matter thoroughly.

    35. Senator Ayotte. Ms. James, does the Air Force believe it will 
need congressional authority or appropriations to divest A-10s?
    Ms. James. Any Air Force divestiture proposals will be forwarded as 
part of the President's budget for congressional consideration. If 
confirmed, I will take no action on fleet divestures without consulting 
all stakeholders.

    36. Senator Ayotte. Ms. James, have the Army and Marine Corps 
provided an opinion to the Air Force on any potential plan to divest 
the A-10s?
    Ms. James. I don't know. However, the normal process would be for 
the Air Force to brief the Army and Marine Corps as well as the other 
DOD components on the Air Force's fiscal year 2015 budget 
recommendations. Additionally, DOD leads an extensive review of each 
Service's budget proposals as part of the annual Program Budget Review. 
This process has not yet fully played out.

    37. Senator Ayotte. Ms. James, has the Army expressed a desire to 
maintain and operate the A-10?
    Ms. James. I don't know. Personally, I have not communicated with 
the Army about this program.

    38. Senator Ayotte. Ms. James, how does the Air Force plan to 
replace the capabilities that will be lost if the A-10 is divested by 
fiscal year 2015?
    Ms. James. I am told that the A-10 capabilities already exist on 
multi-role platforms. The evolution of targeting pods, precision-guided 
munitions, and the refinement of tactics, techniques, and procedures 
have enabled other platforms to provide the capabilities once 
considered unique to the A-10. I will delve into this more deeply if 
confirmed.

    39. Senator Ayotte. Ms. James, how does the Air Force plan to 
replace the A-10s role in close air support, combat search and rescue 
(CSAR) support, strike coordination and reconnaissance (SCAR), and as a 
forward air controller (airborne)?
    Ms. James. I am told that these missions are already accomplished 
using multiple aircraft in the Air Force inventory. Multi-role fighter 
platforms already perform most of these missions. I agree that this is 
a critical question to review more thoroughly if confirmed.

    40. Senator Ayotte. Ms. James, if the A-10 is divested, does the 
Air Force anticipate a degradation of capability in any of these areas?
    Ms. James. If the A-10 is divested, it will be critical that these 
capabilities be provided through alternate means. I would be committed 
to this if confirmed.

    41. Senator Ayotte. Ms. James, what would be the timeline for A-10 
divestments?
    Ms. James. I do not have any information on this.

    42. Senator Ayotte. Ms. James, will F-35s come into the inventory 
at the same rate or faster than A-10s would be divested?
    Ms. James. I don't know.

    43. Senator Ayotte. Ms. James, are Air Force F-35 pilots receiving 
formal training for the following missions: close air support, CSAR 
support, Special Operations Forces support, air interdiction, armed 
reconnaissance, forward air controller (airborne), non-traditional 
intelligence, surveillance, and reconnaissance, and SCAR?
    Ms. James. My understanding is that pilots either are, or will be 
trained, in all these areas.

    44. Senator Ayotte. Ms. James, has the Air Force developed plans to 
end or curtail A-10 pilot training?
    Ms. James. I have not been briefed on this.

    45. Senator Ayotte. Ms. James, is the Air Force curtailing A-10 
pilot training in fiscal year 2014? If so, how?
    Ms. James. I have not been briefed on this area.

    46. Senator Ayotte. Ms. James, would all bases that lose the A-10 
receive a new airframe? If not, which bases will not receive 
replacement airframes?
    Ms. James. I have no information on this.

    47. Senator Ayotte. Ms. James, which operations plans (OPLANS) 
explicitly call for the use of A-10s and how will these OPLANS be 
supported without the A-10? (a classified response is acceptable)
    Ms. James. I have not been briefed on classified matters. I can 
provide, if confirmed.

    48. Senator Ayotte. Ms. James, has the Air Force sought the formal 
opinions of COCOMs regarding the potential divestment of the A-10?
    Ms. James. I do not know specifically, but if not, it should be 
part of the normal process.

    49. Senator Ayotte. Ms. James, what have COCOMs said?
    Ms. James. I have not been briefed on this.

    50. Senator Ayotte. Ms. James, have they expressed concerns about 
the ability to support OPLANs?
    Ms. James. I have not been briefed on classified matters.

    51. Senator Ayotte. Ms. James, will every A-10 removed from South 
Korea be replaced by an F-35?
    Ms. James. I have not been briefed on this.

    52. Senator Ayotte. Ms. James, in South Korea, would there be any 
gap between the removal of A-10s and their replacement with F-35s?
    Ms. James. I have not been briefed on this.

    53. Senator Ayotte. Ms. James, what are the strategic assumptions 
that are guiding the Air Force's decision to potentially divest the A-
10?
    Ms. James. My understanding is that the Air Force is looking to 
achieve savings where possible in single mission aircraft when multi-
mission aircraft can fulfill that mission.

    54. Senator Ayotte. Ms. James, how has the A-10 performed in 
Afghanistan?
    Ms. James. As far as I know, the A-10 performed superbly in 
Afghanistan.

    55. Senator Ayotte. Ms. James, how did the A-10 perform in Iraq?
    Ms. James. Superbly, to the best of my knowledge.

    56. Senator Ayotte. Ms. James, what is the best Air Force close air 
support platform in Afghanistan?
    Ms. James. I don't have information on this, but I have been 
briefed that the following additional aircraft provide close air 
support in Afghanistan: F-15E, F-16, B-1, B-52, AC-130.

    57. Senator Ayotte. Ms. James, how much does it cost to operate and 
maintain the current fleet of A-10s?
    Ms. James. I am told that in fiscal year 2012, the Air Force owned 
346 A-10C aircraft that flew a total of 101.6K hours. The associated 
operational costs were $1.8 billion (based on Air Force Total Ownership 
Cost fiscal year 1303 data).

    58. Senator Ayotte. Ms. James, what is the potential Future Years 
Defense Program (FYDP) savings associated with divesting the A-10 
fleet?
    Ms. James. I have not received any FYDP briefings.

    59. Senator Ayotte. Ms. James, what is the FYDP savings associated 
with divesting only the Active Duty A-10s while maintaining all the 
ANG/Air Force Reserves (AFRES) A-10 fleet?
    Ms. James. I don't know.

    60. Senator Ayotte. Ms. James, how does the planned A-10 Programmed 
Flying Training (PFT) for fiscal year 2014 compare to the PFT in fiscal 
year 2013? How does this change compare with other aircraft?
    Ms. James. My understanding is that the fiscal year 2014 A-10C PFT 
is reduced 18 percent from the fiscal year 2013 levels. The Air Force 
has explained to me that this is a result of the fiscal year 2013 
National Oceanic and Atmospheric Administration-directed conversion of 
a Formal Training Unit (FTU) squadron to Air Force Reserve component 
and flying hour reductions associated with current fiscal challenges. 
Apparently, while other FTUs may have seen small flying hour 
reductions, no other FTUs are showing a noticeable difference in 
production between fiscal year 2013 and fiscal year 2014.

    61. Senator Ayotte. Ms. James, when has Headquarters (HQ) Air 
Combat Command (ACC) directed that the last scheduled Active Duty A-10 
FTU ``B Course'' to occur? Please provide start and end dates.
    Ms. James. Based on my understanding, A-10 B-courses are still 
funded and planned.

    62. Senator Ayotte. Ms. James, has HQ ACC canceled any Active Duty 
B Courses programmed for fiscal year 2014?
    Ms. James. To the best of my knowledge--no.

    63. Senator Ayotte. Ms. James, is the Air Force still assigning new 
pilots to A-10 formal training and operational units?
    Ms. James. As I understand it, the Air Force is still assigning new 
pilots to the A-10.

    64. Senator Ayotte. Ms. James, when does the Air Force assignment 
system currently project the last A-10 pilots will enter formal 
training?
    Ms. James. Logically speaking, it would seem that the Air Force 
would only cease A-10 B-course training if the A-10 fleet is to be 
removed from the inventory.

    65. Senator Ayotte. Ms. James, is the Air Force maintaining the 
health of the A-10 fleet commensurate with other major weapons systems 
in terms of personnel flow, and logistics, and operations and 
maintenance (O&M) funding? Please include a side-by-side comparison 
with other major weapons systems.
    Ms. James. As I understand, yes. A-10 funding levels and aircraft 
availability (AA) rates are commensurate with other legacy fighter/
attack weapon systems. However, the A-10 manning levels decreased 
approximately 10 percent from fiscal year 2010 to fiscal year 2012. 
This is partly due to the closing of the A-10 squadron at Spangdahlem 
AB, Germany. Overall, the health of the A-10 fleet, in terms of AA, 
improved from fiscal year 2010-2012. Total O&M costs less MILPERS are 
included in the comparison below.
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    66. Senator Ayotte. Ms. James, in the event of A-10 fleet 
divestment, will the Air Force mobilize ANG/AFRES A-10 units to fulfill 
this gap?
    Ms. James. Logically speaking, it would seem that a fleet 
divestment would include ANG and AFRES units.

    67. Senator Ayotte. Ms. James, how long will they be mobilized?
    Ms. James. Divestiture, if it were to happen, would include the 
ANG, AFRES and the active units.

    68. Senator Ayotte. Ms. James, what was the cause of the F-15E 
mishap that occurred during the Libya operations? (a classified 
response is acceptable)
    Ms. James. I have not been briefed on this, but I will look in to 
it, if confirmed.

    69. Senator Ayotte. Ms. James, which legacy close air support (CAS) 
platforms have a Common Missile Warning System installed?
    Ms. James. My understanding is that there are no Air Force legacy 
CAS platforms that have this specific system installed. However, legacy 
Air Force platforms are equipped with a number of systems to protect 
against missile threats to include infrared and radar warning 
receivers, countermeasures, jammers and decoys. The F-35 will also have 
advanced warning and defensive systems.

    70. Senator Ayotte. Ms. James, which legacy CAS platforms are 
considered ``threshold'' for the ALQ-131 Pod Upgrade Program (PUP)?
    Ms. James. I have not been briefed on the PUP.

                       f-35 joint strike fighter
    71. Senator Ayotte. Ms. James, do you believe that our Nation needs 
the F-35 Joint Strike Fighter? If so, why?
    Ms. James. Yes, we need a fifth generation fighter aircraft to 
ensure air dominance.

    72. Senator Ayotte. Ms. James, do you believe it is important to 
execute the planned increase in production in fiscal year 2015 and 
beyond?
    Ms. James. I am unfamiliar with Air Force 2015 budget plans or 
specific F-35 production buy profiles. Intuitively an increase in 
production should continue to drive down unit cost, address legacy 
fleet recapitalization needs and provide capability sooner to help 
address threats. If confirmed, I look forward to reviewing the Service 
2015 budget plans. From what I understand, the Air Force, like the rest 
of DOD, is reviewing all programs closely as it develops its future 
budgets against the backdrop of an uncertain fiscal environment.

                              auditability
    73. Senator Ayotte. Ms. James, Secretary Hagel has said that DOD 
needs ``auditable statements . . . to reassure the public, and 
Congress, that we are good stewards of public funds''. Do you share 
Secretary Hagel's belief that we need auditable statements to ensure 
the Air Force is a good steward of our tax dollars--especially in this 
period of difficult budget cuts?
    Ms. James. Yes. Auditable financial statements provide Congress and 
the American public confidence that the Air Force is producing useful 
and reliable fiscal information, as well as spending taxpayer funds 
judiciously. Our current budget environment makes this effort even more 
urgent. Audit readiness will improve the efficiency and effectiveness 
of the funds entrusted to the Air Force.

    74. Senator Ayotte. Ms. James, do you understand that submitting an 
audit-ready statement of budgetary resources by September 30, 2014 is 
not just a goal, but it is the law?
    Ms. James. Yes. I fully understand that the September 30, 2014 
deadline for validating the audit readiness of the statement of 
budgetary resources was mandated in National Defense Authorization Act 
(NDAA) for Fiscal Year 2013.

    75. Senator Ayotte. Ms. James, in light of the cancelation late 
last year of the failing Expeditionary Combat Support System, do you 
believe the Air Force is on track to meet the 2014 and 2017 audit 
deadlines?
    Ms. James. While I don't have detailed insight into the current Air 
Force audit readiness plan, I know the Air Force is committed to 
meeting the near- and long-term audit readiness goals. I intend on 
ensuring this remains a priority for the Air Force, if confirmed.

    76. Senator Ayotte. Ms. James, what are the greatest challenges in 
meeting the audit readiness requirement and how can Congress help?
    Ms. James. I look forward to becoming more knowledgeable about Air 
Force audit readiness plans and goals. The ``longest pole in the tent'' 
likely will be legacy systems. Without doubt, the effort is substantial 
and impacts the entire enterprise. I am committed to identifying the 
most significant challenges, as well as practical solutions to 
overcoming those challenges.

    77. Senator Ayotte. Ms. James, do I have a commitment from you that 
the Air Force will meet the 2014 statement of budgetary resources 
deadline, as required by the 2013 NDAA?
    Ms. James. You have my full commitment to work this hard. I 
understand this is a legal requirement and will give it full attention 
and priority. Once confirmed, I will look more closely into where the 
Air Force stands today.

               sequestration and its impact on readiness
    78. Senator Ayotte. Ms. James, General Welsh has recently said that 
under sequestration, the Air Force would be unable to execute the 2012 
Strategic Planning Guidance that requires the military to fight one 
major adversary and deter another. General Welsh also told airmen 
stationed in Japan that the Air Force would ``not be as ready as we 
would like'' if ordered to take action against the Syrian regime. Do 
you agree with General Welsh's assessments?
    Ms. James. I agree with General Welsh especially with respect to 
those forces that stopped flying due to sequestration.

    79. Senator Ayotte. Ms. James, what are your greatest readiness 
concerns if sequestration goes forward in 2014?
    Ms. James. If confirmed, I will focus on returning units stood down 
in fiscal year 2013 to operational levels of readiness.

    80. Senator Ayotte. Ms. James, General William Shelton, Commander 
of Air Force Space Command, recently said that sequestration threatens 
to ``break every program'' in the U.S. military space enterprise. Do 
you share his concern?
    Ms. James. I have not been briefed fully on space programs, but I 
agree in principle sequestration is very damaging.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                        religion in the military
    81. Senator Lee. Ms. James, the current Air Force Instruction (AFI) 
1-1, Section 2.12.1 regarding the free exercise of religion states that 
airmen are free to practice the religion they choose. It goes on to 
state that they may ``confidently practice beliefs while respecting 
others whose viewpoints differ from their own''. What action or actions 
by airmen would you consider show a lack of respect for the viewpoints 
of others?
    Ms. James. Ridiculing someone because of their religion or because 
they are non-religious would be contrary to the AFI you reference and 
counter to the wingman culture the Air Force values. It would also be 
disrespectful to continue pressing an unwelcome religious discussion on 
someone.

    82. Senator Lee. Ms. James, can you please describe when the 
practice of faith may be restricted by the viewpoints of others?
    Ms. James. The practice of faith should never be restricted by the 
personal viewpoints of others. Accommodation of particular religious 
practices will be granted unless a commander determines military 
necessity justifies limitation of the requested accommodation. 
Commanders and supervisors at all levels are expected to ensure that 
requests for religious accommodation are dealt with fairly.

    83. Senator Lee. Ms. James, what do you understand to be the 
difference between evangelizing, which is allowed by DOD, and 
proselytizing, which is not allowed?
    Ms. James. My understanding is that the Air Force and DOD have no 
policy that directly addresses religious evangelizing and 
proselytizing. However, there is an Air Force policy on Free Exercise 
of Religion and Religious Accommodation. Basically, servicemembers may 
share their faith with other servicemembers, but may not forcibly 
attempt to convert others of another faith or no faith to their own 
beliefs. Concerns that may arise regarding these issues are handled on 
a case-by-case basis by the leaders of the unit involved, in 
consultation with chaplains and legal advisors.

    84. Senator Lee. Ms. James, how are these differences explained to 
commanders in the military, and do you believe it is consistently 
applied?
    Ms. James. I believe that Air Force Chaplains are directly involved 
in the training of squadron and wing commanders. This training includes 
a discussion of the commander's role in ensuring the religious freedoms 
of airmen. It also includes a discussion of the commanders own 
religious practices. If confirmed, I look forward to discussing this 
area more with the Chief of Air Force Chaplains and to inquire about 
consistency.
                                 ______
                                 
    [The nomination reference of Hon. Deborah Lee James 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    August 1, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Deborah Lee James, of Virginia, to be Secretary of the Air Force, 
vice Michael Bruce Donley, resigned.
                                 ______
                                 
    [The biographical sketch of Hon. Deborah Lee James, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Deborah Lee James
Education:
    Duke University

        <bullet> 1976-1979
        <bullet> Bachelor of Arts Degree, Comparative Area Studies, 
        awarded 1979

    Columbia University, School of International and Public Affairs

        <bullet> 1979-1981
        <bullet> Master of International Affairs Degree, awarded 1981
Employment record:
    Science Applications International Corporation (SAIC)

        <bullet> President for Technical and Engineering Sector
        <bullet> February 2013-present

        <bullet> Executive Vice President for Communications and 
        Government Affairs
        <bullet> August 2010-February 2013

        <bullet> Senior Vice President/Business Unit General Manager
        <bullet> February 2004-August 2010

        <bullet> Senior Vice President
        <bullet> January 2002-February 2004

        <bullet> Senior Vice President and Director for Homeland 
        Security
        <bullet> January 2002-January 2002 (1 month)

    Business Executives for National Security

        <bullet> Executive Vice President and Chief Operating Officer
        <bullet> May 2000-December 2001

    United Technologies

        <bullet> Vice President of International Operations and 
        Marketing
        <bullet> April 1998-May 2000

    U.S. Department of Defense

        <bullet> Assistant Secretary of Defense, Reserve Affairs
        <bullet> May 1993-April 1998

    U.S. House of Representatives

        <bullet> Professional Staff Member
        <bullet> 1983-1993

    Department of the U.S. Army

        <bullet> Presidential Management Intern, Army Materiel Command
        <bullet> September 1981-April 1983
Honors and awards:
    Profiles in Diversity Journal ``Women Worth Watching'' 2010 and 
2012
    Secretary of Defense Medal for Outstanding Public Service, 1997 and 
1998
    Meritorious Civilian Service Medals awarded by Army, Navy, Air 
Force, and Coast Guard
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Deborah 
Lee James in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Deborah Roche Lee James.
    Deborah Lee James.
    Deborah Roche Lee.
    Deborah Lynn Roche.

    2. Position to which nominated:
    Secretary of the Air Force.

    3. Date of nomination:
    August 1, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 25, 1958; Long Branch, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Frank Joseph Beatty.

    7. Names and ages of children:
    Samuel Phillips Lee II, 29.
    Regina Blair Lee, 27.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Rumson Fair Haven Regional High School, High School Diploma, June 
1976.
    Duke University, A.B. Comparative Studies, May 1979.
    Columbia University, MIA (International Affairs), May 1981.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    President, Technical and Engineering Sector (SAIC), McLean, VA, 
February 2013-present.
    Executive Vice President, Communications and Government Affairs 
(SAIC), McLean, VA, August 2010-February 2013.
    Senior Vice President/Business Unit General Manager (SAIC), McLean, 
VA, February 2004-August 2010.
    Senior Vice President (SAIC), McLean, VA, January 2002-February 
2004.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, Defense Advisory Committee on Women in the Services, 2010-
Present (Special Government Employee)

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Trustee, Deborah R. Lee James Revocable Trust (my personal trust)
    Advisory Board Member, Pentagon Federal Credit Union Foundation 
(2008-Present), Alexandria, VA
    Advisory Board, Woman's Memorial Science, Technology, Engineering 
and Math (STEM) Campaign (2010-Present), Arlington, VA
    Advisory Board, College of Charleston School of Language, Culture 
and World Affairs (2010-Present), Charleston, SC
    Member, Board of Directors, Tragedy Assistance Program for 
Survivors (TAPS) (2011-Present), Washington, DC
    Member, Advisory Board, Citadel School of Engineering Advisory 
Board (2010-Present), Charleston, SC
    Board Member, Women in International Security (WIIS) Executive 
Circle (2012-Present), Washington, DC
    Board Member, Atlantic Council of the United States (2012-Present), 
Washington, DC
    Advisory Member, Business and Professional Women's Foundation--
Joining Forces for Women Veterans Mentorinig Advisory Council (2011-
Present), Washlngton, DC

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Executive Mosaic 4x24 Leadership Program, Potomac Officers' 
Club (2013-Present), McLean, VA (note: this is not a charity)

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Debbie James Political Contributions - 4-15-13

 
                                                                     Candidate/PAC
              Date                     Amount
 
4/16/2008..........................      $500   SAIC Inc.-Voluntary Political Action Committee of SAIC
5/9/2008...........................      $250   Ketner, Linda
10/21/2008.........................    $2,300   Obama, Barack
10/31/2008.........................      $500   Ketner, Linda
8/12/2009..........................    $1,000   SAIC Inc.-VPAC
9/2/2010...........................    $3,000   SAIC Inc.-VPAC
10/25/2010.........................      $500   Skelton, Ike
9/30/2011..........................      $250   Douglass, John
3/19/2012..........................    $1,000   Connolly, Gerry
4/17/2012..........................    $4,000    SAIC Inc.-VPAC
 


    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Secretary of Defense Medal for Outstanding Public Service (1997 and 
1998)
    Meritorious Civilian Service Medals awarded by Army, Navy, Air 
Force, and Coast Guard
    Profiles in Diversity Journal ``Women Worth Watching,'' 2010 and 
2012

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    N/A

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    N/A

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Deborah L. James.
    This 5th day of September, 2013.

    [The nomination of Hon. Deborah L. James was reported to 
the Senate by Chairman Levin on September 24, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 13, 2013.]
                              ----------                              

    [Prepared questions submitted to Hon. Jessica G. Wright by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not see the need for any modifications. I believe that 
the Goldwater-Nichols Act has significantly contributed to the strong 
framework for today's joint warfighting capabilities. It has 
considerably improved inter-service and joint relationships, promoting 
greater effectiveness of the military departments and combatant 
commands.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Currently I am unaware of any areas where modifications are 
needed. If I am confirmed, I will continue to assess any further need 
to legislative modifications.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. In October 2012, I was designated as the acting Principal 
Deputy Under Secretary of Defense for Personnel and Readiness. Further, 
in December 2012, I was named the acting Under Secretary of Defense for 
Personnel and Readiness. In both of these roles, I supported the 
Secretary and Deputy Secretary of Defense in the areas of Total Force 
Management as it relates to readiness; National Guard and Reserve 
component affairs; health affairs; training; and personnel requirements 
and management, including equal opportunity, morale, welfare, 
recreation, and quality of life matter. I have been responsible for the 
recruitment, career development, pay and benefits of 1.4 million Active 
Duty military personnel, 1.3 million Guard and Reserve personnel, 
680,000 DOD civilians, and was responsible for overseeing the overall 
state of military readiness.
    In addition, I served this country in uniform for over 35 years, a 
large part of that time in key leadership positions as an Active Guard 
Reserve officer as well as a traditional Reserve component member. My 
last assignment for over 7 years was as The Adjutant General of the 
Commonwealth of Pennsylvania and Commander of the Pennsylvania National 
Guard where I worked with a wide variety of officials at the Federal, 
State, and local levels. During that time, I was responsible for a vast 
array of programs including the personnel, equipping, training, 
mobilizations, deployment and demobilizations of over 20,000 guards men 
and women, the management and implementation of the PA National Guard 
responsibility for the National Special Security Event G-20, the role 
the PA National Guard played in providing support to Hurricane Katrina, 
and several aspects of the Presidential Inauguration in January 2009, 
to name just a few. I was also responsible for all of the Veterans 
programs within the Commonwealth as well as our Family support 
networks, Yellow Ribbon and Employer Support of the Guard and Reserve 
(ESGR) Programs.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Under Secretary of Defense for Personnel and Readiness (P&R)?
    Answer. This year marks the 40th anniversary of the All-Volunteer 
Force and it must remain our highest priority to maintain the quality 
and readiness of our Nation's Total Force. With shifting operational 
needs abroad and the difficult fiscal realities at home, we will need 
to rebalance, adapt and evolve our workforce to meet these challenges. 
We must do this also by providing commensurate compensation, benefits, 
support and medical care to our servicemembers and their families. As 
we face programmed reductions in military end strength, civilian 
workforce, and contract services, we must be vigilant in order to 
sustain force readiness and retain our high quality military and 
civilian personnel that have made our military the strongest, most 
capable, and respected fighting force in the history of the world.
    The Department leadership is collectively focused on eliminating 
sexual assault from the Total Force. Even one sexual assault is one too 
many and out of step with the core values of the American military. 
Likewise, P&R must keep, at the forefront, preventing suicide and 
addressing mental health as we complete our mission in Afghanistan and 
assist our transitioning servicemembers to be successful and productive 
in their civilian life.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will continue to support the force 
readiness and personnel risk reduction priorities of Secretary Hagel 
and Deputy Secretary Carter. I will further assess range of challenges 
and issues confronting the Department in these areas. I fully recognize 
this is a team effort and that significant progress cannot be made 
without leadership and close partnerships. I intend to continue to work 
closely with Congress; colleagues in the Office of Secretary of 
Defense, Joint Staff, and the Military Departments and Services; as 
well as with critical partners across the interagency and advocacy 
groups to make progress on these challenges.
                                 duties
    Question. Section 136 of title 10, U.S.C., provides that the Under 
Secretary of Defense for Personnel and Readiness shall perform such 
duties and exercise such powers as the Secretary of Defense may 
prescribe in the areas of military readiness, total force management, 
military and civilian personnel requirements, military and civilian 
personnel training, military and civilian family matters, exchange, 
commissary, and non-appropriated fund activities, personnel 
requirements for weapons support, National Guard and Reserve 
components, and health affairs.
    Assuming you are confirmed, what duties do you expect to be 
assigned to you?
    Answer. If confirmed, I intend to carry out my responsibilities, 
functions, relationships, and authorities, in accordance with the law 
and consistent with DOD Directive 5124.2, ``Under Secretary of Defense 
for Personnel and Readiness (USD(P&R)).'' I would be the Secretary of 
Defense's principal staff assistant and advisor in all matters relating 
to the management and well-being of military and civilian personnel in 
the DOD Total Force and for oversight of the readiness of this force. I 
would develop policies and provide oversight for the direction of plans 
and programs governing Total Force management as it relates to 
manpower; force management; planning; program integration; readiness; 
National Guard and Reserve component affairs; health affairs; training; 
personnel requirements and management; and compensation. This also 
includes equal opportunity, morale, welfare, recreation, and quality of 
life matters for both civilian and military personnel and their 
families.
    Question. In carrying out these duties, what would be your 
relationship with the following officials?
    The Secretary of Defense.
    Answer. If confirmed, I expect to serve the Secretary as his 
principal advisor and advocate for Total Force Management as it relates 
to readiness; National Guard and Reserve component affairs; health 
affairs; training; and personnel requirements and management, including 
equal opportunity, morale, welfare, recreation, and quality of life 
matters.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would expect my relationship with the 
Deputy Secretary to be fundamentally the same as that with the 
Secretary of Defense.
    Question. The Assistant Secretary of Defense for Health Affairs 
(ASD(HA)).
    Answer. If confirmed, ASD(HA) will be my principal advisor for all 
DOD health policies, programs, and force health protection activities.
    Question. The Assistant Secretary of Defense for Reserve Affairs 
(RA).
    Answer. If confirmed, ASD(RA) will be my principal advisor for all 
Reserve component matters in the Department of Defense (DOD).
    Question. The Department of Defense General Counsel.
    Answer. If confirmed, I would anticipate regular communication, 
coordination of actions, and exchange of views with the General Counsel 
and the attorneys assigned to focus on personnel policy matters. I 
would expect to seek and follow the advice of the General Counsel on 
legal and procedural matters pertaining to the policies promulgated 
from the off ices of the USD(P&R) office.
    Question. The Department of Defense Inspector General.
    Answer. The DOD Inspector General is in charge of promoting 
integrity, accountability, and improvement of DOD personnel, programs 
and operations to support the Department's mission and serve the public 
interest. If confirmed, I will fully assist in any investigations or 
issues that relate to personnel and readiness.
    Question. The Service Secretaries.
    Answer. If confirmed, I would hope to work closely with the 
Secretaries of the Military Departments on all matters relating to the 
management, well-being, and readiness of military and civilian 
personnel in the DOD Total Force structure.
    Question. The Service Chiefs.
    Answer. If confirmed, I would hope to work closely with the 
Secretaries of the Military Departments on all matters relating to the 
management, well-being, and readiness of military and civilian 
personnel in the DOD Total Force structure.
    Question. The Assistant Secretaries for Manpower and Reserve 
Affairs of the Army, Navy, and Air Force.
    Answer. If confirmed, I would intend to further strengthen the 
partnership with these officials in carrying out the human resource 
obligations of the Services for the Total Force.
    Question. The Deputy Chiefs of Staff of the Army and Air Force for 
Personnel, the Chief of Naval Personnel, and the Deputy Commandant of 
the Marine Corps for Manpower and Reserve Affairs.
    Answer. If confirmed, I intend to partner in effective working 
relationships with these officers to ensure that DOD attracts, 
motivates and retains the quality people it needs.
    Question. The combatant commanders.
    Answer. If confirmed, I would hope to work closely with the 
Combatant Commanders on all l matters relating to the management, well-
being, and readiness of the DOD Total Force.
    Question. The Joint Staff, particularly the Director for Manpower 
and Personnel (J-1).
    Answer. If confirmed, I intend to partner a close coordinating 
relationship with the Joint Staff regarding manpower and personnel 
policy issues.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief, National Guard Bureau is a principal advisor to 
the Secretary of Defense, through the Chairman of the Joint Chiefs of 
Staff, on matters involving non-Federalized National Guard forces and 
on other matters as determined by the Secretary of Defense. If 
confirmed, I look forward to a continued strong relationship, through 
ASD(RA), to ensure effective integration of National Guard capabilities 
into a cohesive Total Force.
    Question. Director, Defense Health Agency.
    Answer. If confirmed, I plan to work closely with the Director of 
the Defense Health Agency (soon to be established), through ASD(HA), in 
all matter relating to the Military Health System and common medical 
services shared across all Services.
    Question. Director, Office of Personnel Management.
    If confirmed, I intend to partner a close coordinating relationship 
with the Director, Office of Personnel Management on matters regarding 
civilian personnel policies.
                systems and support for wounded warriors
    Question. Servicemembers and civilians who are wounded or injured 
in combat operations deserve the highest priority from their Service 
and the Federal Government for support services, healing and 
recuperation, rehabilitation, evaluation for return to duty, successful 
transition from active duty if required, and continuing support after 
retirement or discharge. Despite the enactment of legislation and 
renewed emphasis over the past several years, many challenges remain.
    What is your assessment of the progress made to date by DOD and the 
Services to improve the care, management, and transition of seriously 
ill and injured servicemembers and their families?
    Answer. DOD and Department of Veterans Affairs (VA) continue to 
make progress in this area. We have reduced the overall disability 
evaluation time from over 500 days to 400 days and are reducing the 
post-separation wait for VA disability determination. We are also 
actively collaborating on the establishment of joint DOD/VA policy 
guidance, processes, and metrics for coordination of case management 
and care coordination programs within the two Departments related to 
the delivery of care, benefits and services to wounded, ill or injured 
servicemembers and their families. Efficiencies we have made toward 
expediting the paperless transfer of medical, personnel and financial 
data to VA and the electronic exchange of information to the Veterans 
Benefits Management System have both contributed to elimination of the 
current backlog of disability benefit claims and will benefit future 
Veterans by enabling VA to process claims faster and more accurately, 
thereby allowing those Veterans to receive earned benefits more quickly
    If confirmed, I will continue to ensure an electronic and seamless 
transition from recovery to reintegration for our wounded, ill or 
injured servicemembers. Additionally, I would continue the Department's 
collaborative efforts with the VA on compensation and benefits, 
transition assistance and care coordination.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. The greatest strength is the DOD's commitment to take care 
of its wounded warriors and their families. That commitment will guide 
continued efforts by DOD and VA. Fine tuning case management and 
automation of certain aspects of the process will aid in reducing 
processing times.
    Question. What are the weaknesses that need to be corrected?
    Answer. The DOD and VA have undertaken a total review and revamping 
of our approach to case management--policy, process and IT. For 
example, DOD, VA and the Military Departments Care Coordinators are 
piloting a case management tool in the National Capital Region and 
Texas. The goal is to gain insights, and use these insights; to 
integrate non-medical and medical case information to assist recovering 
wounded, ill and injured servicemembers obtain a new-normal life 
outcome; link data transfer between recovery care and disability 
evaluation; and ensure quality assurance across the continuum of care. 
The pilot is ongoing and will conclude by summer 2014.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. If confirmed, working closely with Congress and the 
military departments, I will continue to evaluate what additional 
support, including resources and/or authority, is necessary to address 
the needs of the wounded servicemembers, their families and caregivers. 
For example, in addition to the above pilot, we are taking first steps 
to expand our Operation Warfighter and Education and Employment 
Initiative opportunities beyond the government sector to include the 
private sector. Additionally, we have a robust adaptive sports and 
rehabilitation program, including such activities as gardening, arts, 
and team and individual sports.
    Question. Studies conducted as a result of the revelations at 
Walter Reed Army Medical Center in 2007 pointed to the need to reform 
the disability evaluation system. The Integrated DES (IDES) program was 
established to integrate the DOD and Department of Veterans Affairs 
(VA) disability systems to improve and expedite processing of 
servicemembers through the disability evaluation system. While the 
processing times under the IDES were initially encouraging, 
servicemembers are now mired in long VA disability rating and case 
disposition wait times, and the VA's portion of the system appears to 
be overloaded.
    What is your assessment of the need to further streamline and 
improve the IDES?
    Answer. DOD has made great progress in increasing staffing and 
improving the performance of our portions of the IDES processes. DOD is 
completing its IDES core processes in 148 days against a 105-day goal. 
Our sustained improvement has resulted in moving a large case load 
downstream to VA increasing their IDES backlog. As a result, VA's 
inventory of cases awaiting preliminary rating has increased 46 percent 
since January 2013, to 9,192 cases and the VA IDES core process 
timeliness has increased to 272 days against a 100-day goal.
    We are helping VA improve service delivery by ensuring the case 
files presented to them are as complete as possible. DOD is piloting an 
electronic case file capability to eliminate mailing and accounting of 
paper records by the VA and the Army has stationed 20 servicemembers at 
VA's Seattle rating site to help fill the gaps in DOD case files when 
they are identified. The intended affect is to help VA have cases 
``ready to rate'' to allow them to adjudicate IDES cases more quickly. 
If confirmed, I plan to continue to look at all aspects of the system 
to see where opportunities exist for improvement.
    Question. If confirmed, how will you address any need for change?
    Answer. DOD continues to work toward a more efficient IDES using 
senior-level work groups and leadership councils as well as 
capitalizing on the information presented to us by the Recovering 
Warrior Task Force, Government Accountability Office, and Military 
Department Inspector Generals. DOD is currently undertaking several 
congressional studies that will give us further opportunities to 
enhance IDES processes. Where there are efficiencies that can be 
achieved by changing policy, we will do so. Additionally, we will 
continue our work with our VA partners to align our programs and 
resources together to agree on the proper paperless IT system and 
streamlined process changes and appropriately address them across our 
Departmental boundaries.
    Question. If confirmed, what role would you expect to play in 
ensuring that the Departments of Defense and Veterans Affairs achieve 
the administration's objectives in DOD and VA collaboration?
    Answer. In my capacity as Acting Under Secretary, I have been 
personally involved with DOD and VA collaborative efforts to achieve 
the administration's objectives and all other joint efforts with VA. If 
confirmed, I expect to continue to take a personal role. I will 
continue to provide oversight and strategic guidance, and require the 
staff to maintain constant contact with their VA counterparts at all 
echelons. I will continue to personally meet with my VA counterpart on 
a regular and frequent basis, formally and informally, and engage with 
the Secretary and Congress, and the White House staff.
                  repeal of ``don't ask, don't tell''
    Question. What is your assessment of the effect on the force of the 
repeal of the Don't Ask, Don't Tell policy?
    Answer. The repeal of ``Don't Ask, Don't Tell'' has had no impact 
on military readiness, effectiveness, unit cohesion, recruiting, or 
retention of the Armed Forces. We attribute this success to our 
comprehensive pre-repeal training programs, combined with the 
discipline of our servicemembers and continued close monitoring and 
enforcement of standards by our military leaders at all levels.
    Question. What military benefits are currently being provided to 
same-sex spouses and to same-sex partners?
    Answer. It is the Department's policy to treat all married military 
personnel equally. Therefore, the same benefits are available to all 
military spouses, regardless of whether they are in same-sex or 
opposite-sex marriages. No benefits are provided to domestic partners, 
regardless of whether they are in same-sex or opposite-sex domestic 
partnerships.
    Question. Are there any additional military benefits that should be 
considered for same-sex spouses and partners?
    Answer. No, it is the Department's policy to treat all married 
military personnel equally. The same benefits are available to all 
military spouses, regardless of whether they are in same-sex or 
opposite-sex marriages.
    Question. What is your assessment of the current and projected 
future impact to resourcing that will be required to provide military 
benefits to same-sex spouses and partners?
    Answer. The costs associated with same-sex benefits are not 
significant from a cost perspective and will be absorbed within the 
existing Department budget.
    Question. If confirmed, what actions, if any, would you pursue in 
this regard?
    Answer. If confirmed, I will continue to ensure that all military 
personnel and their spouses are treated equally with access to the same 
benefits.
    Question. According to press accounts, two States--Texas and 
Mississippi--are refusing to allow same-sex spouses to apply for 
Federal benefits in State-supported facilities, citing conflicts with 
State law.
    If confirmed, what actions would you take to ensure that members of 
the National Guard of the United States will receive the Federal 
benefits to which they are entitled?
    Answer. Identification cards are currently available in all Federal 
facilities for all military spouses, regardless of whether they are in 
same-sex or opposite-sex marriages. The Department is currently 
examining the matter of those National Guard sites that are not issuing 
identification cards to same-sex spouses with our legal counsel and 
evaluating options to address the issue. In the meantime, we are asking 
same sex spouses desiring cards to go to the nearest Federal facility.
    Question. On September 4, 2013 you signed a policy memorandum that 
authorized ``administrative absence to obtain a legal marriage'' when a 
member is part of a couple that desires to get married and is assigned 
to a duty station located more than 100 miles from a U.S. State, the 
District of Columbia, or other jurisdiction that allows the couple to 
get married. This memorandum revoked an August 13, 2013 change to DOD 
Instruction 1327.06 that authorized uncharged leave for same-sex 
couples to travel from the area of a permanent duty station for the 
purpose of obtaining a legal marriage. The authority established in 
your September 4th memo, while neutral on its face, appears to only 
benefit same sex couples who want to be married and not heterosexual 
couples.
    What is your understanding concerning whether there are any 
circumstances in which heterosexual members who want to obtain a legal 
marriage would be eligible for uncharged leave under the policy set 
forth in your September 4, 2013 memorandum?
    Answer. We have identified several situations in which heterosexual 
members who want to obtain a legal marriage would be eligible for 
administrative absence under the current policy. The nature of military 
service often involves short notice deployments and temporary duty to 
far off or foreign locations. That Service does not always allow a 
member to meet the requirements necessary to obtain a marriage license 
in the State in which the member is assigned. Some States have age 
restrictions which require that one or both members of a couple be of a 
certain age or to obtain a parent's or guardian's permission before 
marrying. This permission may not be obtainable within the limited 
timeframe that military service sometimes allows. Finally, several 
States impose a waiting period to obtain a marriage license which may 
not be achievable for a deploying member of the Armed Forces. All of 
these are examples in which a commander may grant an administrative 
absence to facilitate a legal marriage.
    Question. In your view is the use of regular leave accrued by all 
members of the Armed Forces at the rate of 2\1/2\ calendar days for 
each month of Active service, as authorized by title 10, U.S.C., 
section 701(a), inadequate for the purpose of allowing leave for all 
servicemembers who want to be married to be married?
    Answer. The current accrual rate of annual leave is sufficient for 
most servicemembers who choose to obtain a legal marriage. This policy 
however, was crafted to allow flexibility for those members who cannot 
obtain a legal marriage within 100 miles of their assignment. Because 
laws differ around the globe, providing members time to ensure their 
relationships are recognized under law is a reasonable accommodation. 
In addition, the Department has committed to conduct annual reviews to 
determine if this policy remains necessary.
    Question. What is your understanding of the authority of the 
Secretary of Defense to create a new category of administrative 
absence, for 7 to 10 days in a paid status, for members of the armed 
services in circumstances where the member could otherwise use earned 
leave?
    Answer. The authority for approved absences from duty already 
exists under current OSD policy (DODI 1327.06), and there is 
longstanding precedent that commanders have discretionary authority to 
grant administrative absence to servicemembers. Examples of similar 
administrative absences include house hunting, attendance at 
professional meetings, and time off to officiate at a retirement 
ceremony.
    Question. How does the policy in your September 4 memorandum 
promote the express goal of treating all military personnel equally and 
making the same benefits available to all qualified members?
    Answer. In an effort to treat everyone equally, and after careful 
consideration and consultation with the Chiefs and Secretaries of the 
Services, as well as the Chairman of the Joints Chiefs of Staff, our 
September 4th policy was expressly crafted so that it applied equally 
to both same sex and opposite sex couples.
                          religious guidelines
    Question. In your view, do DOD policies concerning religious 
accommodation in the military appropriately accommodate the free 
exercise of religion and other beliefs, including individual 
expressions of belief, without impinging on those who have different 
beliefs, including no religious belief?
    Answer. Yes, in my view, current DOD policies appropriately 
accommodate the free exercise of religion for all servicemembers in the 
pluralistic environment that is the U.S. military. DOD does not endorse 
any one religion or religious organization, and provides free access of 
religion for all members of the Military Services. The Department 
respects (and supports by its policy) the rights of others to their own 
religious beliefs, including the right to hold no beliefs.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact good order and 
discipline?
    Answer. Current law and policy ensure servicemembers' rights to 
observe the tenets of their respective religions, as well as to hold no 
specific religious conviction or affiliation. The Chaplaincies of the 
Military Departments advise and assist commanders in the discharge of 
their responsibilities to provide for the free exercise of religion in 
the context of military service as guaranteed by the Constitution, 
assist commanders in managing Religious Affairs and serve as the 
principal advisors to commanders to ensure these expressions of belief 
do not adversely impact mission accomplishment, including good order 
and discipline.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. Existing DOD policies provide military chaplains with 
sufficient guidance that allows them to balance to the extent their 
religious beliefs allow, in both formal and informal settings, their 
own faith practices with the rights of others who may hold different or 
no religious beliefs. The Chaplaincies of the Military Departments 
train and equip chaplains with the knowledge and skill to help them 
make this proper balance.
    Question. Section 533 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2013 (P.L. 112-239) protects rights of 
conscience of members of the Armed Forces and chaplains of such 
members, and prohibits, so far as possible, use of such beliefs as the 
basis of any adverse personnel action, discrimination, or denial of 
promotion, schooling, training, or assignment. Members of some 
religious denominations have sincerely held beliefs in opposition to 
same-sex marriage.
    In your view, may a member of the armed forces who has a sincerely 
held belief in opposition to same-sex marriage be subject to adverse 
personnel action or similar other adverse action, if he or she shares 
those personal views on the subject in an official capacity?
    Answer. The issue--a servicemember expressing personal views when 
speaking in his/her official capacity, is significant. Servicemembers 
speaking in their official capacities are expected to express official 
views, especially when dealing with subordinates. Expressing personal 
views while speaking in an official capacity can create confusion, and 
may give the impression of encouraging disagreement with DOD policy or 
the law. Servicemembers are entitled to have personal views and to 
express them in personal conversations; however, servicemembers are not 
entitled to use their official capacity as a forum to express their 
personal views. Servicemembers who express personal views when speaking 
in an official capacity may be held accountable for what they say.
    Question. Can he or she be subject to adverse personnel action if 
they express personal views on same sex marriage in their personal 
capacity?
    Answer. Expressions of personal views by servicemembers in their 
private capacities generally are permissible because they are integral 
to the free speech and the free exercise of religion. Traditionally, 
private conversations in the barracks have included expressions of 
views contrary to DOD policy. However, personal expressions which 
disrupt the mission or have an adverse impact on good order and 
discipline may cause the member to be counseled by his/her chain of 
command, not for the views but for the disruption to the mission.
    Question. The Independent Review Related to Fort Hood observed that 
``DOD policy regarding religious accommodation lacks the clarity 
necessary to help commanders distinguish appropriate religious 
practices from those that might indicate a potential for violence or 
self-radicalization.'' Recommendation 2.7 of the Final Recommendations 
urged the Department to update policy to clarify guidelines for 
religious accommodation and Recommendation 2.8 urged the Department to 
task the Defense Science Board to ``undertake a multi-disciplinary 
study to identify behavioral indicators of violence and self-
radicalization . . . ''.
    What action has the Department taken with respect to these 
recommendations?
    Answer. Ensuring appropriate accommodations for the free exercise 
of religions and protecting servicemembers from violence and harm are 
both of vital importance. Pursuant to Recommendation 2.7, the 
Department updated its policy on religious accommodation to ensure 
religious freedoms and practices are accommodated to the fullest extent 
possible considering mission readiness, discipline and unit cohesion. 
This policy is in the final stage of revision to incorporate language 
from the NDAA for Fiscal Year 2013, section 533, which protects the 
rights of conscience of members of the Armed Forces and chaplains. 
Regarding Recommendation 2.8, the Department did task the Defense 
Science Board (DSB) to undertake a study.
             prevention of and response to sexual assaults
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the military?
    Answer. We recognize there is no single solution to solving the 
problem of sexual assault and have adopted a multi-disciplinary 
approach that includes a variety of initiatives in prevention, 
investigation, accountability, victim assistance and assessments. If 
confirmed, I will continue to work to ensure our program prevents 
crimes from occurring in the first place. But, when crimes do occur, we 
must have comprehensive, effective, accessible and responsive 
investigative and victim assistance services available. I will work to 
ensure that our program continues to educate all servicemembers, 
frontline commanders and leaders and hold them accountable in 
establishing a culture of dignity and respect; fully implements our DOD 
Sexual Assault Prevention and Response Strategic Plan and the 16 
recently-announced Secretary of Defense directives; and sustains our 
current level of attention, focus, and emphasis throughout the entire 
Department.
    Question. In 2012, for the fourth year in a row, there were more 
than 3,000 reported cases of sexual assault in the military, including 
2,558 unrestricted reports, and an additional 816 restricted reports. 
Moreover, a recent survey conducted by the DOD indicates that the 
actual number of sexual offenses could be considerably higher, as 6.1 
percent of Active Duty women and 1.2 percent of Active Duty men 
surveyed reported having experienced an incident of unwanted sexual 
contact in the previous 12 months. This survey has been criticized by 
some because its conclusions are extrapolated from an unscientific 
sample set and the questions asked in the survey were too imprecise.
    What is your assessment of the scientific accuracy of the DOD 
survey?
    Answer. The Defense Manpower Data Center's (DMDC) survey division 
has conducted surveys of the military and DOD community using 
stratified random sampling for over 20 years, subscribing to 
methodological best practices promoted by the American Association for 
Public Opinion Research. The scientific method of stratified random 
sampling is the principal method used by government statistical 
agencies and private survey firms that conduct surveys, such as the 
Army Research Institute (ARI), Census Bureau, the Bureau of Labor 
Statistics, Gallup, RAND, WESTAT, RTI, Pew, and Roper.
    For this survey, DMDC worked with DOD's legal experts here at 
Headquarters and in the field to ensure behaviors prohibited in the 
Uniform Code of Military Justice (UCMJ) were appropriately captured in 
the unwanted sexual contact (USC) survey question. The behaviorally-
based question includes a range of physical behaviors prohibited by the 
UCMJ (from unwanted sexual touching of the breasts or buttocks through 
completed sexual intercourse), but does not include unwanted touching 
of non-sexual areas of the body (e.g., the shoulder, back, legs, or 
arms) or offensive verbal remarks or gestures (these behaviors are 
captured separately).
    Question. What is your assessment of the scientific accuracy of the 
interpretation of the results of that survey in the 2012 report?
    Answer. The accuracy of survey results are dependent on whether the 
sample used is randomly drawn and conforms to scientific ``best 
practices'' for sampling and weighting procedures. Criticism of the 
2012 Workplace and Gender Relations Survey of Active Duty Members 
(WGRA) as ``unscientific'' and unreliable is uniformly false and based 
on a basic lack of understanding of the scientific sampling and 
weighting methods employed by DMDC. DMDC uses state-of-the-art 
scientific statistical techniques to draw conclusions from random, 
representative samples of the active duty population and can accurately 
generalize to the full active duty population using a complex, but 
precise, scientific weighting process that accounts for sampling error, 
nonresponse, and the necessary oversampling of smaller populations 
within the sample. In conducting this research, DMDC has a decided 
advantage over many public and private opinion pollsters since DMDC is 
the DOD repository for all military personnel data and is able to use 
demographic data to inform the sampling and weighting process. It also 
allows respondents the ability to answer sensitive questions without 
disclosing identifying demographic information--a strategy strongly 
encouraged by experts in the field, but rarely available to other 
polling organizations.
    Question. If confirmed, what actions will you take to obtain better 
data on sexual assaults in the military?
    Answer. DMDC is already working closely with the Sexual Assault 
Prevention and Response Office, the Services, and senior DOD leaders to 
look for ways to continue to improve the 2014 WGRA survey and refine 
the metrics and measures that scientifically and effectively evaluate 
sexual assault within DOD. DOD is also working with other agencies, 
such as CDC, to help increase the comparability of DOD data to other 
sexual assault victimization data collected about civilians across the 
United States.
    I have also directed that DMDC and the Services coordinate their 
survey efforts to minimize burden on servicemembers and maximize the 
sharing of information from each survey effort. Coordination of survey 
efforts to minimize respondent burden is critical as we must recognize 
the adverse impact from over-surveying the same population, which has 
caused a decline in response rates across DOD surveys.
    DMDC is also currently conducting a scientific review of non-
response to these DOD surveys. This analysis will identify whether 
those who did not respond to the survey would have provided 
significantly different answers than those who did respond. Findings 
from this analysis may contribute to improving the sampling methodology 
for future WGRA surveys. If confirmed, I will continue to ensure we use 
the most scientific and effective survey methods to assess sexual 
assault in DOD.
    Question. What is your assessment of the current DOD sexual assault 
prevention and response program?
    Answer. Our Sexual Assault Prevention and Response program is 
dynamic and we are consistently assessing it and striving to benefit 
from our lessons learned, best and promising practices, and inputs from 
stakeholders across our Nation. When methods are identified that can 
advance our efforts to build trust and improve our response, we act to 
implement these upgrades when they are within the Department's 
authorities; when a best practice is identified, we work to make it a 
common practice throughout the Department. If confirmed, I will 
continue to work closely with Members of Congress to assess current 
policy and identify needed changes.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. When a victim makes the difficult decision to come forward 
and report, we need to provide multiple reporting options. I support 
offering victims two reporting options, based on previous studies and 
commissions that found that some victims choose to forgo reporting and 
support services for fear of automatically initiating a criminal 
investigation. To address this barrier, the Department instituted two 
reporting options: Restricted and Unrestricted Reporting. Initiated in 
2005, the Restricted Reporting option allows victims to confidentially 
access medical care and advocacy services without initiating an 
official investigation or command notification. This differs from the 
Unrestricted Reporting option, in which when a victim makes an 
Unrestricted Report, it is referred for investigation, and command is 
notified. As with Restricted Reporting, victims may receive healthcare, 
counseling, and advocacy services. Since 2005, over 5,000 
servicemembers have used the Unrestricted Reporting option.
    Question. What is your view of the adequacy of DOD oversight of 
military service implementation of the DOD and Service policies for the 
prevention of and response to sexual assaults?
    Answer. In my view, we are providing extensive oversight and 
accountability of this important mission, and are continuing to employ 
multiple accountability tools to assess the issue of sexual assault 
prevention and response (SAPR) in DOD. The Department publishes two 
accountability reports on sexual assault each year: the DOD Annual 
Report on Sexual Assault in the Military and the Annual Report on 
Sexual Harassment and Violence at the Military Service Academies (MSA). 
These comprehensive reports serve as the Department's primary means for 
evaluating and communicating oversight of its SAPR program, and provide 
transparency and accountability for every report of sexual assault.
    In addition, DOD Inspector General (DOD IG) reviews are a valuable 
tool used to ensure accountability, integrity, and efficiency. To date, 
the DOD IG has conducted three separate reviews to assess different 
aspects of how the overall system responds to and handles sexual 
assault cases. Additionally, in 2011, the DOD IG formed a new Violent 
Crime Division focused on evaluating and improving the quality of the 
Department's violent crime investigations, including sexual assault. 
This unit evaluates the sexual assault investigation training and 
compliance with DOD policy in the Military Criminal Investigative 
Organizations.
    The Secretary of Defense hosts weekly meetings of the senior 
leaders in this Department to hold the entire prevention and response 
system accountable. Also, the Director of the SAPR Office chairs an 
Executive Integrated Product Team consisting of General and Flag 
Officers and members of the Senior Executive Service from OSD, the 
Military Departments, and the Services every other month providing 
detailed review and oversight of the SAPR program. Finally, OSD 
provides subject matter expertise and analysis to a quarterly SAPR 
Joint Executive Council convened by the Joint Chiefs of Staff and 
designed to review SAPR program performance and effectiveness across 
each of the Military Services.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults have 
occurred?
    Answer. As we have seen in other recent military culture changes, 
culture change starts at the top with commanders and leaders leading by 
example and enforcing standards of conduct. The role of the chain of 
command in changing the military culture is paramount. Central to our 
approach is requiring leaders at all levels to foster a command climate 
where sexist behaviors, sexual harassment, and sexual assault are not 
condoned or ignored; where dignity and respect are core values we live 
by and define how we treat one another; where victims' reports are 
treated with the utmost seriousness, their privacy is protected, and 
they are treated with sensitivity; where bystanders are motivated to 
intervene to prevent unsafe behaviors; and where offenders know they 
will be held appropriately accountable by a strong and effective system 
of justice. Commanders and leaders at every level are the key to 
eliminate and enforce standards and in achieving these goals as we have 
seen in other culture change in the military as the repeal of ``Don't 
Ask Don't Tell.''
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. Commanders and frontline leaders are responsible for 
mission accomplishment and for caring for the women and men assigned to 
their commands. This is a core axiom of leadership in the profession of 
arms. Commanders and leaders at all levels are responsible and must be 
held accountable for supporting victims' full range of timely and 
responsive care, as well as for establishing a command climate where 
victims are treated with the sensitivity and privacy they deserve. If 
confirmed, I will continue to emphasize these central elements of 
leadership.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. In my view, taking the disposition decision in the 
administration of military justice from the commander would undermine 
readiness and leave the chain of command without the necessary tools to 
develop a cohesive fighting force by enforcing good order and 
discipline. I agree with Secretary Hagel that this authority must 
remain in the command structure and that we must continue to make it 
more accountable. We need commanders more involved not less involved to 
solve the issue of sexual assault. That said, we look forward to the 
report of the Response Systems Panel's review of this issue.
    Question. What is your view of the protections afforded to victims 
who are required to testify at Article 32, Uniform Code of Military 
Justice, investigations that are required before charges can be 
referred to a General Court-Martial?
    Answer. In my view, we must continue to work on building victim 
confidence, and that includes process improvements to prevent potential 
revictimization during the Article 32 process. Recently, the Secretary 
directed a number of changes that I support, including ensuring that 
Judge Advocates serve as investigating officers for all Article 32 
hearings on sexual assault charges and providing legal representation 
to victims of sexual assault in an attorney-client relationship, 
similar to the Air Force pilot program begun in January of this year.
                           service academies
    Question. What do you consider to be the policy and procedural 
elements that must be in place at each of the Service Academies in 
order to prevent and respond appropriately to sexual assaults and 
sexual harassment and to ensure essential oversight?
    Answer. Sexual assault has no place at the Military Service 
Academies and is antithetical to their core values and missions. 
Prevention and response to sexual assault must be completely integrated 
into the full spectrum of Service Academy life and learning. The 
Department will continue to assess the Academies efforts to develop and 
refine prevention and response programs in order to establish a culture 
free of sexual harassment and assault. If confirmed, I will review 
those programs and partner with the Academies to continue to better 
educate and train the cadets and midshipmen, and to ensure the 
Department provides appropriate response and support for the victim if 
a crime does occur.
    Question. What is your assessment of measures taken at the Service 
Academies to ensure religious tolerance and respect, and to prevent 
sexual assaults and sexual harassment?
    Answer. The Academies continue to put considerable effort into the 
development and implementation of policies and procedures designed to 
address religious tolerance. The Academies do not endorse any one 
religion or religious organization, and provide free access of religion 
for all members of the Military Services. In the past few years, the 
Academies' leadership has emphasized the need for greater respect for 
the rights of others to their own religious beliefs, including the 
right to hold no beliefs.
    While the Service Academies have made great efforts, more needs to 
be done to reduce the level of sexual harassment and sexual violence. 
It will require continued persistence and innovative measures at each 
institution. If confirmed, I will remain committed to ensuring that 
prevention efforts are strong, victims receive care, offenders are held 
appropriately accountable and proper support is offered to cadets and 
midshipmen throughout their academic career.
             assignment policies for women in the military
    Question. The Department in January rescinded the policy 
restricting the assignment of women to certain units which have the 
primary mission of engaging in direct ground combat operations, and has 
given the military services until January 1, 2016, to open all 
positions currently closed to women, or to request an exception to 
policy to keep a position closed beyond that date, an exception that 
must be approved by the Chairman of the Joint Chiefs of Staff and the 
Secretary of Defense. The services are working now to develop gender-
free physical and mental standards for all military occupations, 
presumably with the goal of allowing individuals, regardless of gender, 
to serve in those positions if they can meet those standards.
    If confirmed, what role will you play in the development of these 
standards?
    Answer. The Services and U.S. Special Forces Command (SOCOM) are 
working with various scientific and research agencies (Ex: U.S. Army 
Research Institute for Environmental Medicine, Center for Naval 
Analyses, Air Education and Training Command, and RAND) to review and 
validate occupational standards to ensure they are occupationally and 
operationally relevant and are applied gender-neutrally by September 
2015.
    Along with the Chairman of the Joint Chiefs of Staff and the 
Service Chiefs, I will monitor the progress the Services and SOCOM are 
making toward integration of females into previously closed occupations 
and positions. The Department will provide notification to Congress 
before opening any additional positions.
    Question. If confirmed, will you ensure that the standards are 
realistic and preserve, or enhance, military readiness and mission 
capability?
    Answer. DOD is aware of Public Law 103-160, section 543, which 
prohibits the Department from changing an occupational performance 
standard for the purpose of increasing or decreasing the number of 
women in that occupational career field. We are working with RAND to 
ensure physical standards are gender neutral and accurately correlate 
with the requirements of the position or occupation
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements? If so, what steps would you 
take to ensure that such decisions are made on this basis?
    Answer. It is in the best interest of the Department to allow both 
men and women who meet the standards for military positions and units 
to compete for them. Rescission of the 1994 policy provides a way 
forward to fully integrate women without compromising our readiness, 
morale, or warfighting capacity. By removing gender as a disqualifier 
for certain positions, all servicemembers will have the opportunity for 
assignment to positions for which they qualify.
    Question. Some family members have expressed concerns about 
assigning women to what are currently male-only combat units.
    To what extent do you believe that this will be a problem in the 
implementation of this policy?
    Answer. I understand, and appreciate, family members may have these 
concerns for their loved ones. I expect our commanders to select the 
best qualified personnel, male or female, and create a command climate 
that focuses on mission accomplishment and treat each person with 
dignity. We have had a number of women in newly opened units since mid-
2012, and have already experienced successful integration of women into 
formerly male-only units. We will leverage this experience moving 
forward.
    Question. If it is a problem, what steps would you take to address 
it?
    Answer. We require the Services to provide us feedback on their 
elimination of gender-restrictive policies, including the status of 
women in these newly opened positions. If problems are encountered, I 
will, if confirmed, examine the issue and address it considering all 
dimensions and all recommendations consistent with sustaining 
readiness.
                      rising costs of medical care
    Question. In testimony presented to Congress in February, 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April 2009, Secretary Gates told an audience at Maxwell Air Force 
Base that ``health care is eating the Department alive.'' In recent 
years, the Department has attempted to address this growth through fee 
increases for military retirees, while also attempting to identify and 
implement other means to ensure the viability of the military health 
system in the future.
    What is your assessment of the long-term impact of rising medical 
costs on future DOD plans?
    Answer. I realize the health care benefit contributes to the 
retention of our men and women in service. But the reality is that 
health care costs are a serious problem for the Department, consuming 
nearly 10 percent of the budget. Simply stated, rising health care 
costs pose a real threat to our readiness and modernization efforts. If 
confirmed, I will continue to work with beneficiaries, advocacy groups, 
Congress and our medical establishment to find workable solutions to 
sustain the benefit in a realistic and affordable way without breaking 
faith with our troops and their families.
    Question. If confirmed, what actions will you initiate or recommend 
to the Secretary of Defense to mitigate the effect of such costs on the 
DOD top-line?
    Answer. Managing health care costs is a shared responsibility among 
the government, providers and the beneficiary. In addition to seeking 
reasonable beneficiary cost share reforms, if confirmed I will work 
with key stakeholders to pursue promising cost saving initiatives such 
as emphasizing wellness and prevention and working with our medical 
leadership to capitalize on internal efficiency opportunities.
    Question. What reforms in infrastructure, benefits, or benefit 
management, if any, do you think should be examined in order to control 
the costs of military health care?
    Answer. I firmly believe that we must adopt a holistic approach to 
addressing the rising costs of health care. Responsible benefit reform 
should be one part of the solution, but not the only solution. If 
confirmed, I will continue to look for ways to optimize our medical 
infrastructure to include leveraging the work of the recent 
Modernization Study. I see great opportunities to reduce overhead 
through the implementation of the Defense Health Agency and shared 
services. Finally, there are numerous cost saving opportunities in such 
areas as logistics, provider payment reform, and anti-fraud efforts, 
just to name a few.
 annual increase in rates of basic pay below the employment cost index
    Question. The Department has requested an across-the-board pay 
raise for 2014 for military personnel of 1 percent, versus a 1.8 
percent rise in the Employment Cost Index (ECI) benchmark, and has 
indicated that in order to restrain the growth of personnel costs, 
similar below-ECI pay raises may be necessary over the next several 
years.
    What is your assessment of the impact a 1 percent pay raise would 
have on recruiting and retention for 2014? What would be the impact of 
a 1 percent pay raise in 2015 through 2017?
    Answer. I recognize the sacrifices made by the men and women in our 
Armed Forces. A 1.0 percent military basic pay increase ensures their 
pay continues to compare favorably with that of American workers. The 
Department does not believe a 1 percent military basic pay raise will 
materially affect recruiting and retention in 2014. At this time, the 
Department does not have sufficient data to determine the long-range 
impacts of a 1 percent pay raise beyond 2014 on retention and 
recruiting.
    Question. Some have suggested that the difference between the 1 
percent pay raise requested by the administration, and the 1.8 percent 
increase based on the ECI could be paid for by realizing efficiencies 
within DOD.
    What is your assessment of the ability of the Department to fund 
the full 1.8 percent increase in basic pay through efficiencies?
    Answer. The Department is continually searching for efficiencies, 
and the pay raise proposal was a tough decision reached by our senior 
leaders after carefully weighing other options and efficiencies for 
savings. The Department is working diligently to ensure our 
servicemembers receive fair compensation that recognizes the sacrifices 
they make for our country, while still adhering to our budgetary 
constraints.
    Answer. Currently, military compensation compares favorably with 
compensation in the private sector. The Department believes a 1 percent 
military basic pay increase is preferable to having to reduce military 
end strength by thousands of additional troops on top of the drawdown 
already planned, or further cut funds for training and equipping our 
forces to achieve these savings.
    Question. The Department has traditionally compared Regular 
Military Compensation against comparable civilian salaries to devise a 
percentile as a way to assess the relative attractiveness of military 
pay versus civilian pay.
    What is the current comparable percentile of military pay versus 
civilian pay for officers and enlisted personnel?
    Answer. The Department's most recent study, performed by the 11th 
Quadrennial Review of Military Compensation, compared regular military 
compensation for officers and enlisted members with pay for civilians 
with comparable education and experience levels. Its report found that, 
on average, regular military compensation for officers was at the 83rd 
percentile and for enlisted members the 90th percentile.
    Question. How do these percentiles compare to the base level at 
which the Department feels military compensation must be to effectively 
recruit and retain the highest quality personnel possible for military 
service?
    Answer. The Report of the 9th Quadrennial Review of Military 
Compensation evaluated military compensation levels and found that 
compensation at approximately the 70th percentile of comparably 
educated and experienced civilians was necessary to enable the military 
to recruit and retain the appropriate quantity and quality of 
personnel. Measured against that benchmark, current military 
compensation compares favorably with private-sector compensation.
                           mental health care
    Question. Senior military leaders have long recognized the need to 
reduce the stigma for military personnel and their families and 
veterans in seeking mental health care, yet we continue to hear from 
servicemembers that the stigma persists.
    If confirmed, what actions will you take to reduce the stigma 
associated with seeking mental health care by military personnel and 
their families?
    Answer. If confirmed, I would support ongoing Department efforts to 
combat stigma and increase help-seeking behavior among servicemembers, 
their families, and affected civilians. Both the Department and the 
Services are currently heavily engaged in this effort. I am also 
prepared to provide the Service Chiefs with whatever resources are 
necessary to expand the breadth of the outreach efforts. I fully 
support the Department's efforts to improve health and mental 
healthcare services, and reduce the stigma of mental healthcare for our 
men and women in uniform, their families, and affected civilians.
    Question. In your view, are DOD's current mental health resources 
adequate to serve all active duty and eligible Reserve component 
members and their families, as well as retirees and their dependents?
    Answer. Yes, after making significant investments in infrastructure 
and capacity over the last decade, DOD's current mental health 
resources are adequate to serve our active duty, family and veteran 
populations. Within DOD, strategies for hiring and retention of mental 
health providers resulted in a 40 percent increase in mental health 
providers over the last 3 years. This includes a 40 percent increase in 
the number of psychologists, a 26 percent increase in the number of 
psychiatrists, a 42 percent increase in the number of social workers, 
and a 27 percent increase in the number of mental health nurses. This 
represents a fill rate of 99 percent of funded positions, which 
compares favorably to industry averages.
                           suicide prevention
    Question. The numbers of suicides in each of the services continue 
to be of great concern to the committee, though military suicide rates 
appear to remain lower than suicide rates for the same age groups in 
the civilian sector.
    If confirmed, what role would you play in shaping DOD policies to 
help prevent suicides both in garrison and in theater and to increase 
the resiliency of all servicemembers and their families?
    Answer. If confirmed, I will continue to collaborate with the 
Services, VA, and other public and private organization and experts to 
further foster best practices in the prevention of suicide and build 
resilience within our force. During my tenure as Acting Under Secretary 
of Defense for Personnel and Readiness, the first DOD-wide 
comprehensive suicide prevention policy was issued. We recently 
established a Peer Crisis Hotline in Afghanistan to support our 
servicemembers in theater and expanded our Military Crisis line to 
Europe and Korea. I have ensured that the Vets4Warriors peer support 
program continued and was extended to all servicemembers and their 
families this year. I also implemented a program evaluation methodology 
aligning the DOD's suicide prevention strategy with the National 
Strategy for Suicide Prevention to ensure its effectiveness and 
efficiency. I will continue to work with the Department of Veterans 
Affairs (VA) and the Centers for Disease Control and Prevention (CDC) 
regarding our joint Suicide Data Repository, which now hosts mortality 
data on all who have served dating back to 1979.
    Increasing the resiliency of all DOD Personnel--military and 
civilian--and their families remains one of the key factors in the 
prevention of suicide and one of the central tasks assigned to the 
newly established Defense Suicide Prevention Office under my purview.
    Question. Recent media articles have raised concerns about the 
possible role of Servicemembers Group Life Insurance (SGLI) proceeds to 
survivors as a contributing factor in suicide attempts by 
servicemembers.
    Has the Department examined whether SGLI proceeds, or other 
monetary benefits associated with the death of servicemember, could 
impact a servicemember's decision to commit suicide?
    Answer. The Department has examined the issue and found that the 
research on the association between insurance coverage and suicide is 
not conclusive. The Department of Veterans Affairs, which oversees the 
SGLI program, adheres to a determination standard that suicide victims 
were not of sound mind and adjudicates insurance claims based on that 
policy. Hence, there should not be any restrictions on coverage to the 
survivors.
                       readiness responsibilities
    Question. Section 136 of title 10, U.S.C., gives the Under 
Secretary of Defense for Personnel and Readiness (USD(P&R)) certain 
responsibilities for military readiness. Some important issues that 
affect military readiness, however, such as logistics and materiel 
readiness, have been placed under the jurisdiction of the Under 
Secretary for Acquisition, Technology, and Logistics.
    What is your assessment of the impacts and challenges to DOD 
readiness as a result of sequestration?
    Answer. Sequestration has significantly limited the Services' 
ability to generate ready forces to meet a broad range of mission 
requirements. We are meeting current operational requirements with well 
trained and equipped units, but this is getting more difficult. The 
brunt of the sequester effects is in our ability to generate forces to 
meet contingency surge requirements and this is a serious concern. Some 
of these effects will take considerable time and resources to reverse.
    Question. What is your assessment of how the recent DOD furloughs 
have impacted readiness?
    Answer. A ready unit is the product of myriad personnel, training, 
and equipment pipelines. Our DOD civilian labor force keeps these 
pipelines moving. They are the technicians at our depots, the support 
for our training ranges, and the instructors at our schools--we cannot 
generate ready forces without them. We know that furloughs just 
completed increased maintenance backlogs at our depots and reduced the 
quantity and quality of our training. These effects will take time to 
resolve. We are concerned that as the budget uncertainty persists, the 
most skilled of this workforce will simply leave Federal service, 
thereby creating permanent degradations in critical skill areas.
    Question. What is your assessment of the current readiness of our 
Armed Forces to execute the National Military Strategy?
    Answer. Today our forces are postured globally, conducting 
counterterrorism, stability, and deterrence operations, maintaining a 
stabilizing presence, conducting bilateral and multilateral training to 
enhance our security relationships, and providing the crisis response 
capabilities required to protect U.S. interests. The investments made 
in our Armed Forces have helped maintain our military's standing as the 
most formidable force in the world.
    We remain able to meet the most critical ongoing operational and 
presence requirements that the Nation asks of us, however this is 
getting more difficult as the effects of sequester materialize. What is 
at risk is our ability to generate the surge required for a high-end 
emergent crisis and this is a serious concern.
    Question. In your view, what are the most significant challenges to 
the current readiness of our Armed Forces?
    Answer. The defense strategy requires that our force meet a growing 
number of global security concerns as it recovers from 12 years of 
direct combat. We are concerned that current budget constraints will 
thwart the Services' efforts to regain full-spectrum readiness in order 
to successfully meet the tenets of the defense strategy. The Services 
made deliberate plans to shift from counterinsurgency (COIN) focused 
operations to address more globalized, full spectrum warfighter 
requirements. Those plans are at risk if sequestration remains in 
effect. Specifically, training opportunities and equipment condition 
are our primary concerns in preserving readiness across the force.
    Question. What is your understanding of the responsibilities of the 
USD(P&R) and relationship to the Assistant Secretary of Defense for 
Logistics and Materiel Readiness in ensuring military readiness, 
including materiel readiness?
    Answer. The responsibilities of the USD(P&R) are to develop 
policies, plans, and programs for the Total Force to ensure efficient 
and effective support of wartime and peacetime operations, contingency 
planning, and preparedness. The Assistant Secretary of Defense for 
Logistics and Materiel Readiness oversees material readiness. Force 
readiness and materiel readiness have a symbiotic relationship, and as 
such, I have actively sought to sustain and strengthen this 
relationship in my current capacity. If confirmed, I will continue to 
work closely with my Department counterpart in this area.
    Question. What are the most critical objectives to improve 
readiness reporting and monitoring of the military forces, and if 
confirmed, how would you work with the Military Departments as well as 
other Office of the Secretary of Defense offices to achieve them?
    Answer. The most critical element of readiness management is the 
ability to monitor not just the status of unit readiness, but the 
health of the pipelines that support it. These downstream metrics not 
only provide a more complete picture of readiness, but they are also 
the key to forecasting problems. In my current capacity, I have 
overseen dramatic improvements in the Department's ability to monitor 
readiness along these lines.
    If confirmed, I will continue partnering with the Services, the 
Joint Staff, the combatant commanders, and other OSD partners to 
systematically monitor these pipelines, articulate the likely 
operational consequences, and provide mitigation options.
    Question. Do you believe the current readiness reporting system 
accurately shows if our forces are not only ``ready'' but ``ready for 
what''?
    Answer. Yes. The Defense Readiness Reporting System directly 
addresses the ``ready for what'' question by focusing on mission 
capability. It assesses the readiness of all organizations throughout 
the Department to perform their assigned missions.
    Question. What is your understanding of the responsibilities of the 
USD(P&R) with respect to the Global Response Force?
    Answer. The USD(P&R) provides policy guidance for monitoring the 
readiness levels of units assigned to the Global Response Force. 
USD(P&R) also collaborates with the Joint Staff to identify readiness 
deficiencies within the Global Response Force and recommends mitigation 
options for the Secretary's consideration. Finally, as the resource 
sponsor for the Department-wide joint training, exercise and engagement 
program, the USD(P&R) also facilitates the leveraging of Service or 
Combatant Command training events to exercise the Global Response 
Force.
                        end strength reductions
    Question. The Department last year laid out a defense strategy that 
proposes eventual end strengths of 490,000 for the Army and 182,000 for 
the Marine Corps over the next 5 years.
    What is your understanding of the Army's and Marine Corps' ability 
to meet these goals without forcing out many soldiers and marines who 
have served in combat over the past 10 years with the implicit promise 
that they could compete for career service and retirement?
    Answer. Based on the current rate of drawdown and projected losses, 
I am confident the Army and Marines Corps will meet their fiscal year 
2018 prescribed end strengths. Unfortunately, due to many years of war, 
the size of our personnel reductions, and deep budget cuts, it may be 
difficult for the Services to properly shape their force without 
separating some of our combat veterans. Voluntary and involuntary 
separations may be necessary to ensure the military is postured 
correctly for mission readiness and to meet national security 
objectives during this time of budgetary constraints. As we become a 
leaner Force, it is imperative the Services have the best qualified 
individuals available to ensure mission success.
    Question. What programs are in place to ensure that separating and 
retiring servicemembers are as prepared as they can be as they enter a 
struggling economy?
    Answer. The 2011 Vow to Hire Heroes Act requires a pre-separation 
counseling assessment and counseling, Department of Veterans Affairs 
(VA) benefits briefing and Department of Labor employment workshop 
(with some exceptions). This has been in place since November 2012. An 
enhanced Transition Assistance Program (TAP), which will be completed 
in March 2014, provides a 2-day higher education track (complete 
college application); a 2-day technical track (complete technical 
training application); and a 2-day entrepreneurship and business plan 
education track.
    Question. How fast can the Army and Marine Corps responsibly and 
fairly reduce end strength while maintaining the integrity and 
readiness of combat units?
    Answer. The Department expects a significant drawdown in Army and 
Marine Corps forces over the next several years. I understand that 
sequestration cuts will likely force the consideration of even steeper 
reductions than we've previously planned. Regardless of the actual 
target, my concern remains the same--in making the forces leaner, the 
Department should take care to learn the lessons of previous drawdowns. 
Our military must remain able to respond to any large-scale contingency 
operation. This will require careful consideration by Services about 
their organizational structures and their ability to reconstitute and 
mobilize forces. These reductions must be done with an eye toward those 
who have already served in combat and for those with families who have 
experienced extended separations, by maximizing voluntary programs and 
using the full range of authorities provided by Congress.
    Question. If sequestration continues through 2018, what will be the 
impact on the Active Duty and Reserve end strengths of all the 
Services, and how would the mix between the Active and Reserve Forces 
be affected?
    Answer. Future rounds of sequestration will be devastating and will 
limit our ability to generate healthy, prepared forces especially in 
the near term. It is also forcing a difficult decision between a larger 
unready force, or a smaller ready force. Neither option is without 
concern. It is too soon to tell exactly how these decisions will 
manifest across capabilities or components.
    I do know that a healthy Reserve Force is an absolutely critical 
element of both homeland and overseas operations. We cannot revert back 
to past practices of gutting the capabilities of our Reserves. If 
confirmed, this is a concern that I will follow closely.
    Question. What is your understanding of the need for additional 
force shaping tools requiring legislation beyond what Congress has 
provided the past 2 years?
    Answer. The Department has been granted the Total Force shaping 
tools necessary to meet the drawdown in its current plan. However, 
continued budget reductions may make it necessary to revisit the size 
of all components of the Total Force--Active Duty military, Reserve 
component military, DOD civilians, and contractors. Future assessment 
may require requesting additional congressional authorization for force 
shaping tools to meet reduced end strengths.
               medical personnel recruiting and retention
    Question. DOD continues to face shortages in some critically needed 
specialty medical personnel in both the Active and Reserve components. 
A recent USA Today article asserts that over 3,000 civilian medical 
doctors, nurses, and other health workers decided to leave their jobs 
this year during the period of time when furloughs were either being 
threatened or being carried out.
    What is your understanding of the current shortages of health care 
professionals in DOD, the true effects of sequestration on the 
retention of medical professionals, and the sufficiency of plans to 
meet recruiting and retention goals?
    Answer. DOD is in the midst of evaluating ongoing requirements for 
medical professionals in the context of a military drawdown and a 
modernization study. Preliminary information from the Army indicates 
civilian losses may have increased to a rate of 2-3 times greater than 
expected during the period of sequestration-related furloughs. We are 
polling all of the Services to see whether this trend is more 
widespread, and plan to continue monitoring medical personnel losses as 
related to Military Health System needs.
    Question. What legislative and policy initiatives, including 
bonuses and special pays, do you think may be necessary to ensure that 
the Military Services can continue to meet medical support 
requirements?
    Answer. With the Authority to Consolidate Special Pay provided by 
the NDAA for Fiscal Year 2008, we have adequate financial tools to 
improve retention and recruitment of our uniformed health professions 
officers. We have some flexibility to improve compensation for our 
uniformed providers, if needed, under current authorities. For non-
uniformed military civilian physicians, we have the Physicians and 
Dentists Pay Plan (PDPP). The PDPP allows us to compensate our 
physicians and dentists at rates consistent with VA because we are 
allowed to use their pay table under delegation agreement by OPM. The 
agreement is not limited to physicians and dentists. We will closely 
monitor health compensation trends and coordinate with other Federal 
agencies, to see if we must make adjustments to our future pay plans.
         military accessions vital to national interest program
    Question. Under the Military Accessions Vital to National Interest 
(MAVNI) program, the Services may recruit non-permanent resident aliens 
who have certain high-demand medical or linguistic skills for service 
in the armed forces, and offer them an expedited path to citizenship. 
Although the Services have enjoyed extraordinary recruiting and 
retention in recent years, some specialties remain under strength. 
While limited in scope, the program appeared successful and worthy of 
expansion, but was halted after the initial quota was reached so the 
Department could assess its utility and perform a security review. The 
program was to restart last summer for 2 additional years.
    What is the status of the MAVNI program?
    Answer. The MAVNI program was reinstated in May 2012 following 
required security reviews by Office of the Under Secretary of Defense 
for Intelligence. The pilot will continue through fiscal year 2014.
    Question. How many individuals have been recruited under the 
program since its restart, and in what occupations?
    Answer. Since the program reopened in May 2012, Army has recruited 
43 healthcare professionals and 1,024 critical language speakers.
                           medical marijuana
    Question. What is your assessment on the need for legitimate 
scientific study of the efficacy of medical marijuana in alleviating 
the symptoms of post-traumatic stress disorder (PTSD) experienced by 
servicemembers and veterans?
    Answer. DOD does not have any plans to sponsor research on the use 
of marijuana to treat wounded, ill, or injured servicemembers. The Army 
Medical Research and Materiel Command, which leads our Defense Health 
Program PTSD research, has not reviewed any proposals to investigate 
the use of marijuana for the treatment of PTSD. However, it is 
important to understand that for research studies to be helpful, they 
must be rigorously designed, scientifically sound, and meet the 
requirements for the protection of human subjects. If research were 
proposed that met these criteria, was feasible, and was aligned with 
programmatic requirements, then the study would be considered. DOD is 
supportive of any scientifically rigorous, lawful research efforts that 
have the potential to help improve the lives of patients who have been 
adversely affected by PTSD.
     mobilization and demobilization of national guard and reserves
    Question. Over the past 12 years, the National Guard and Reserves 
have experienced their largest and most sustained employment since 
World War II. Numerous problems arose in the planning and procedures 
for mobilization and demobilization, e.g., inadequate health screening 
and medical readiness, monitoring, antiquated pay systems, limited 
transition assistance programs upon demobilization, and lack of access 
to members of the Individual Ready Reserve. Reserve Force management 
policies and systems have been characterized in the past as 
``inefficient and rigid'' and readiness levels have been adversely 
affected by equipment stay-behind, cross-leveling, and reset policies.
    What is your assessment of advances made in improving Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems still exist?
    Answer. Over the past 12 years, the Department has implemented 
policy changes governing the utilization of the Guard and Reserves and 
expanded pre- and post-benefits for Active Duty periods which have 
served to enhance predictability and morale among servicemembers. 
Providing Reserve component personnel the ability to anticipate and 
plan for periods of utilization as well as periods of inactive duty at 
home contributes to readiness and improves communication among 
servicemembers, their families and employers.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. Significant enduring changes include the new title 10, 
section 12304b mobilization authority provided by Congress in the NDAA 
for Fiscal Year 2012, enabling continued focus on readiness and Reserve 
component (RC) utilization for non-named contingencies. Other enduring 
features include the exceptional RC performance record and support of 
the American people and employers. In my opinion, the readiness for 
future mobilization by Reserve and National Guard members has its 
greatest support in the actions of the American people and employers. 
This willingness has been borne through the long-term adoption of 
standardized policies and procedures governing Reserve mobilization 
combined with adequate dwell periods that have served to increase 
confidence and overall morale on the part of servicemembers and their 
families.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves?
    Answer. Current authorities are appropriate, and enable effective 
National Guard and Reserve utilization. I appreciate the authorities 
and support this committee has provided in this matter.
    Question. What is your assessment of DOD programs to assist members 
of the National Guard and Reserves as they transition from a mobilized 
status?
    Answer. Predictability and open communications are two key elements 
in the sustainment of readiness and morale of Reserve component 
servicemembers and their families. Since 2008, the Yellow Ribbon 
Reintegration Program (YRRP) has provided invaluable deployment and 
reintegration support for the Reserve components. Its efforts, in 
collaboration with partners like Employer Support of the Guard and 
Reserve, Transition GPS (Goals, Plans, Success), the Department of 
Veterans Affairs and the community-based network of care, provide 
information, access, referrals and outreach to military members, their 
families, employers, and immediate support network.
               enhanced reserve mobilization authorities
    Question. In the NDAA for Fiscal Year 2012, Congress authorized the 
Service Secretaries to mobilize units and individuals in support of 
pre-planned combatant command missions for up to 365 consecutive days. 
In the current defense strategy, the President and Secretary of Defense 
have stated that while conventional ground forces will be reduced, 
Special Forces will be increased over the next 5 years, and a key 
component of the new strategy seems to be the establishment of a 
rotational presence in Europe, the Middle East, and anywhere U.S. 
interests are threatened. Some in the press have called this a ``lily 
pad'' approach, and it potentially dovetails with an operational view 
of the Reserve components.
    What is your assessment of the operational reserve and how it will 
fit into this paradigm of smaller, more lethal forces rotating into and 
out of many locations of strategic interest?
    Answer. The operational reserve has a role in a paradigm of 
smaller, more lethal rotational forces. Services should fully leverage 
the new authorities that allow for planned Reserve component 
mobilizations when making decisions on restructuring and employing 
their forces. Utilization of the Guard and Reserve in the rotational 
support to COCOMs will not only reduce the infrastructure required of a 
permanent presence in theater but also relieve stress on the Total 
Force, thereby making the Reserve component an economical and viable 
partner in the force mix. I consider this critical to sustaining the 
readiness that we have achieved in the past 12 years.
    Question. What is your understanding of the appropriate size and 
makeup of the Reserve components in light of the defense strategy?
    Answer. The Department continues to coordinate closely with the 
Services to determine the correct/appropriate mix. Both Active and 
Reserve component forces are essential to supporting the national 
defense strategy, and the Reserve components continue to provide 
trained, ready, and cost-effective forces that can be employed on a 
regular operational basis, while also ensuring strategic depth for 
large-scale contingencies or other catastrophic national crises. The 
Department will further examine the appropriate size and makeup over 
the next several months during the Quadrennial Defense Review and the 
fiscal year 2015 program reviews.
                        military quality of life
    Question. The committee is concerned about the sustainment of key 
quality of life programs for military families, such as family support, 
child care, education, employment support, health care, and morale, 
welfare, and recreation services, especially as DOD's budget declines.
    How do you perceive the relationship between military recruitment 
and retention and quality of life programs and your own top priorities 
for the Armed Forces?
    Answer. The emphasis and resources the Department dedicates to our 
quality of life programs reflect the importance we place on our most 
valuable resource--our people. If I am confirmed, the programs that 
support our people will remain one of my top priorities. If we do not 
care for our people, our ability to continue to recruit and retain the 
best America has to offer will become increasingly more challenging.
    Question. If confirmed, what military qualify of life programs 
would you consider a priority, and how do you envision working with the 
Services, combatant commanders, family advocacy groups, and Congress to 
sustain them?
    Answer. If confirmed, I will continue to focus on the well-being 
and resilience of our servicemembers, their families, and their 
survivors, including access to non-medical counseling programs such as 
Military OneSource and Military and Family Life Counselors aimed at 
preventing the development or exacerbation of mental health conditions 
that detract from military and family readiness. I will also promote 
Morale, Welfare, and Recreation fitness opportunities and child care 
support to help minimize stress on the force. The Department leadership 
is working together with advocacy groups and Congress to efficiently 
close gaps and reduce overlaps in programs and to communicate 
effectively to ensure that families know how to access available 
support when they need it.
                      family readiness and support
    Question. Servicemembers and their families in both the Active and 
Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of concerns among military families as a result of 
the stress of deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families, and, if confirmed, how 
would you ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. The most important family readiness issue for 
servicemembers and their families is ensuring that we continue to 
deliver the support they need at the right time using the most 
effective method. Following 12 years of war and the impending surge of 
servicemembers transitioning from military to civilian life, it is 
critically important that servicemembers, their families, and their 
survivors receive information about available support services and 
resources, when they need it, through communication vehicles they 
prefer and trust. Therefore, we must leverage technology as a means to 
communicate and engage our families. It is imperative that the 
Department continues outreach, education, awareness and engagement 
strategies to promote servicemember and family readiness programs. If 
confirmed, I will continue to be a strong advocate to ensure family 
support programs are properly resourced and effectively managed in DOD.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, deployments, and future reductions in 
end strength?
    Answer. I will continue to work closely with the Services to 
identify and deliver the right balance of family readiness programs and 
support when and where it is needed. Our ongoing mission is to enable 
services, staff, and resources to be surged or evolved, as needed, to 
respond swiftly and effectively to the changing needs of servicemembers 
and their families during peacetime, war, periods of force structure 
change, relocation of military units, base realignment and closure, 
crisis, natural disaster, and other emergency situations. Sharing 
information with the Services on family support needs and best 
practices to address them will ensure that we continue to provide 
timely support while finding the most effective and efficient ways of 
doing so.
    Question. If confirmed, how would you ensure support is provided to 
Reserve component families related to mobilization, deployment and 
family readiness, as well as to Active Duty families who do not reside 
near a military installation?
    Answer. If confirmed, I will continue to work with the Services and 
the National Guard Bureau to ensure that we continue to be responsive 
to the needs of geographically dispersed military families to include 
those who serve in the Reserve component. The Joint Family Support 
Assistance Program that began in 2007 continues to lead our support 
efforts to this population. While the frequency and tempo of Reserve 
component deployments may slow, we know that the needs of these 
families will continue to emerge and evolve. For that reason, part of 
our work through the Joint Family Support Assistance Program entails 
building capacity to identify and meet evolving needs at the local 
community level where these families live, work, and attend school, 
focusing on local institutions they naturally turn to for support when 
they need it. To augment and enable that local support, Military 
OneSource will continue to provide support to all military families, 
military leadership, and military and civilian service providers 
through delivery of information, referrals, and non-medical counseling.
    Question. If confirmed, what steps will you take to sustain family 
support programs, given current fiscal constraints?
    Answer. If confirmed, I will continue to encourage the 
implementation of flexible family support programs that communicate and 
coordinate with interagency and nongovernmental family services to meet 
the enduring needs of our servicemembers and their families whether 
they live on, near, or far from military installations.
    Question. In your view, does the U.S. Special Operations Command 
have unique family readiness and support requirements? If so, in your 
view, are those needs adequately being met by each of the Military 
Services at this time? If they are not adequately being addressed, if 
confirmed, how would you address these unique needs?
    Answer. We expect U.S. Special Operations Command's operating tempo 
will continue to be significant as their units continue to deploy 
throughout the world conducting joint missions. If confirmed, I will 
work with SOCOM to identify family support requirements that are unique 
to this community, offer an analysis of current support provided by the 
Services, and identify gaps in family support provided to the SOF 
community
                 department of defense schools in conus
    Question. Some have questioned the continuing need for DOD-operated 
schools for military dependent children within the continental United 
States (CONUS).
    In light of the administration's request for additional Base 
Realignment and Closure authorities and fiscal constraints, should DOD 
establish or update its criteria for the continued operation of DOD 
schools within CONUS?
    Answer. The President and the Department view preserving and 
strengthening military families as critical to our national security. 
Military families bear an extraordinary burden for our freedom and 
education is a critical quality of life factor affecting readiness and 
retention.
    DOD is committed to providing educational opportunities for all 
military children--balancing quality and cost while exploring all 
options and alternatives.
    Therefore, the Department is in the process of commencing a study 
to evaluate the mission of continuing the operation of DOD schools 
within CONUS. The study will examine and provide alternatives that most 
effectively balance cost and quality considerations for the education 
of kindergarten through 12th grade students at 15 CONUS installations 
where the Department operates schools or contracts the education for 
military dependents. DOD Schools in Guam and Puerto Rico are not 
included in this study.
    Question. If so, and if confirmed, how would you approach this 
task?
    Answer. The Department is currently evaluating the need to continue 
the mission of DOD Schools in the United States. This comprehensive, 
deliberate, and objective study will include input from all 
stakeholders. The study will consider the full range of options for 
meeting the elementary and secondary educational needs of military 
dependents. We owe it to our military families to ensure that the 
decisions concerning the education of our military-connected children 
are the result of sound research findings. The research findings and 
recommendations will be reviewed by OSD senior officials, in 
consultation with the Military Departments. If confirmed, I look 
forward to discussing the recommendations of the study with you.
  office of community support for military families with special needs
    Question. In the NDAA for Fiscal Year 2010, Congress required the 
establishment of an Office of Community Support for Military Families 
with Special Needs within the Office of the USD(P&R). The purpose of 
this office is to enhance and improve DOD support for military families 
with special needs, whether educational or medical in nature.
    In your view, what should be the priorities of this Office of 
Community Support for Military Families with Special Needs?
    Answer. A key priority for the Office of Community Support for 
Military Families with Special Needs should be and is to strengthen 
personal readiness for military families with special needs through a 
comprehensive policy, oversight of programs that support military 
families with special needs, identification of gaps in services to such 
families, and the accessibility to appropriate resources. Presently, 
over 126,000 military family members are enrolled in the Exceptional 
Family Member Program (EFMP). The EFMP supports military families with 
special medical and/or educational needs in three component areas: 
identification/enrollment, assignment coordination to determine the 
availability of services at a projected location, and family support to 
help families identify and access programs and services.
    The Department has recently completed a detailed functional 
analysis of the EFMP to standardize the three components of the Program 
across the Military Services. Standardization will enable military 
families with special needs to have the same level of access to 
services in the three areas of the EFMP regardless of Service 
affiliation and location (for example, at a joint or sister Service 
installation).
    Question. If confirmed, how would you ensure outreach to those 
military families with special needs dependents so they are able to 
obtain the support they need?
    Answer. Communication with military families with special needs and 
the provision of information about the EFMP is a major focus of DOD. If 
confirmed, I will continue ensure that we implement a comprehensive 
communication and marketing plan designed to deliver consistent 
information about the EFMP to families, service providers, and 
leadership. We will also continue to solicit input from families 
through a variety of outreach methods.
                      voluntary education programs
    Question. The Department continues to seek ways to improve 
oversight of its tuition assistance programs, including standardizing 
eligibility criteria among the Services and requiring all schools who 
accept tuition assistance funding, whether for online courses or on-
post, to sign a Memorandum of Understanding with the Department which 
will, among other things, subject online schools to Departmental 
audits.
    What is your assessment of the tuition assistance program in light 
of the needs of the Services and the current budget environment?
    Answer. The Tuition Assistance program is important to DOD because 
it enables the professional and personal development of our 
servicemembers and facilitates their transition to the civilian 
workforce when they are ready to leave the military. If confirmed, I 
will work with the Services to sustain the appropriate level of 
resources for this program.
    Question. What is your view of tuition assistance as a transition 
benefit for servicemembers to obtain civilian licenses and credentials?
    Answer. The Tuition Assistance program currently facilitates the 
transition of our servicemembers to the civilian workforce after they 
separate or retire. In 2012, over 47,000 servicemembers earned college 
degrees which are especially important to those servicemembers whose 
military specialty does not have a direct civilian counterpart. In 
addition, Tuition Assistance supports the academic coursework in 
preparation for any exams required of specific certifications or 
licenses, and over 1,700 servicemembers earned certificates that were 
not related to a degree program. All of these were from institutions of 
higher learning accredited by an accrediting body recognized by the 
Department of Education.
    Question. What is your view of proposed changes to the so-called 
90/10 rule that would require academic institutions to derive no more 
than 85 percent of their revenue from Federal sources, including DOD 
tuition assistance and VA GI Bill funding?
    Answer. I have no objection to the proposal to include title 10 
Tuition Assistance funds in the Federal portion of the 90/10 
calculation. However, it is appropriate for technical assistance and 
oversight of any statutory changes to the proposed 90/10 rule to reside 
with the Department of Education.
                       medical research programs
    Question. What do you see as the highest priority medical research 
investment areas for DOD?
    Answer. The highest priority areas of medical research investments 
are: hemorrhage control and resuscitation; traumatic brain injury 
diagnosis and treatment; Post-Traumatic Stress Disorder prevention, 
diagnosis, and treatment; suicide prevention and intervention; and 
rehabilitation and regenerative medicine.
    Question. How will you assess the amount of investment made in 
these research areas to determine if they are sufficient to meet DOD 
goals and requirements?
    Answer. The Military Health System has implemented a plan to 
conduct annual reviews and analyses of the different research 
portfolios, ensuring research efforts are aligned to capability gaps 
and requirements, assessing the current state of research and science, 
and identifying research gaps and needs that require future funding 
strategies to achieve DOD goals.
    Question. How will you ensure that DOD medical research efforts are 
well coordinated with similar research programs within the private 
sector, academia, the Services, DARPA, the Department of Veterans 
Affairs, and the National Institutes of Health?
    Answer. Critical to the development of our medical research 
investment strategy is an understanding of the related research 
activities in other Federal agencies. This is accomplished by annual 
joint reviews of Federal-agency-specific research portfolios in which 
research investments and results are presented and shared to best 
inform future DOD research investments. Agency participation includes 
the DOD, the Department of Veterans Affairs, the Department of 
Education, and the National Institutes of Health.
    Question. How will you ensure that new medical technologies 
(including drugs and vaccines) are independently and adequately tested 
before their use by DOD organizations and personnel?
    Answer. DOD requires that products be used in a manner consistent 
with FDA rules and procedures. The ASD(HA), under the USD(P&R) 
direction, has the primary responsibility for the oversight of this 
policy's compliance.
    Question. There have been growing privacy and security concerns 
raised about the use of online social networks for medical research 
purposes.
    How will you ensure that the increasing use of social networking 
media for medical research purposes will protect the privacy and 
security of patients?
    Answer. The Department has policies in place that ensure that DOD 
conducted, contracted, sponsored, supported, or managed research 
involving human subjects is conducted in accordance with Federal, DOD, 
and international regulatory requirements. Research protocols, 
including internet research protocols, must be reviewed and approved by 
Institutional Review Boards, and privacy protection is a key element of 
that review. At present, there is no DOD policy regarding the 
protection of privacy for internet research beyond the current privacy 
protections for human subjects of research. The ASD (Research & 
Engineering) who is the DOD lead for the human research protection 
portfolio intends to update the policy that governs human research 
protection to include a section on internet research (including 
recruitment of subjects as well as collection of data).
    Question. What are your biggest concerns related to the DOD medical 
research enterprise?
    Answer. The biggest concern is the impact of instability of medical 
research funding due to budget uncertainty. Stability and thoughtful 
management in medical research funding are necessary to maintain a 
robust scientific community to improve health care outcomes in the 
vital areas of hemorrhage control and resuscitation, traumatic brain 
injury, post-traumatic stress disorder, suicide prevention, extremity 
injury and amputee care and rehabilitation.
                    morale, welfare, and recreation
    Question. Morale, welfare, and recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of deployments. These programs should be 
relevant and attractive to all eligible users, including Active Duty 
and Reserve personnel, retirees, and their families.
    What challenges do you foresee in sustaining MWR programs, 
particularly in view of the current fiscal environment and, if 
confirmed, are there any improvements you would seek to achieve?
    Answer. Changes in our basing, deployment patterns and force 
structure will continue to have a significant impact on our ability to 
deliver quality of life programs to our military families. With more 
than 75 percent of military families now living off installation, there 
is an increasing need for partnerships and support from local 
governments, school systems, and businesses to ensure we continue to 
provide comprehensive, accessible, and affordable quality of life 
programs. Additionally, we are conducting a major assessment of MWR 
programs to ensure they are being operated in as efficient and cost-
effective manner as possible.
    The continued vitality and relevance of MWR programs depend on 
sound management, meeting command and customer needs, a predictable 
stream of nonappropriated revenue and solid appropriated fund support 
of mission essential and community support programs. We must develop 
and maintain a strong network of community-based providers and maximize 
our information and referral resources through internet and social 
networking avenues. We also have the opportunity to improve the 
effectiveness of outreach programs, to better meet military families 
where they live. If confirmed, I will evaluate these opportunities, and 
how we can better coordinate efforts among the various entities 
providing support to our military members and their families.
                commissary and military exchange systems
    Question. Commissary and military exchange systems are significant 
quality of life components for members of the Active and Reserve 
Forces, retirees, and their families.
    What is your view of the need for modernization of business 
policies and practices in the commissary and exchange systems, and what 
do you view as the most promising avenues for change to achieve 
modernization goals?
    Answer. Both the Defense Commissary Agency (DeCA) and the military 
exchanges are progressive organizations seeking to reduce costs within 
their respective businesses. DeCA, for example, has a proven history of 
reducing the costs of the commissary system without decreasing the 
value of the benefit provided. Since its beginning in 1991, 
efficiencies have allowed DeCA to reduce its workforce by 6,700 full 
time equivalent positions and operating costs by approximately $1.4 
billion in constant fiscal year 1992 dollars, which include savings due 
to BRAC closures and inventory reduction. In fact, when measured in 
constant dollars, DeCA's operating costs are only slightly more than 
one-half of what they were when the Agency was created.
    Today's exchanges have gone beyond the traditional brick and mortar 
environment, embracing e-commerce and mobile retail channels to satisfy 
customer demands. The exchanges continue to exceed the DOD Social 
Compact on savings for servicemembers. For the Exchanges, there are 
mechanisms for modernization through the Cooperative Efforts Board. 
Promising areas for change include non-resale procurement, logistics 
and distribution, exchange select/private label, and seasonal and one 
time buys. If confirmed, I will continue to look for ways to modernize 
business policies and find efficiencies in the commissary and exchange 
systems.
    Question. What is your view of the proposals by some to consolidate 
or eliminate Commissaries and Exchanges in certain areas where they are 
underused or duplicative of services readily available at reasonable 
cost in the community?
    Answer. If confirmed, I would review any proposals aimed at 
reducing overhead, which may include closing underutilized locations or 
eliminating duplicative services. I recognize that commissary and 
exchange programs are an important element of the servicemembers' 
compensation package and contribute to the quality of life of military 
personnel and their families. In fact, commissaries are repeatedly 
rated by military personnel as one of their most valued non-pay 
benefits. Selling groceries at cost means that the customer pays the 
same price DeCA pays its supplier plus a 5 percent surcharge which pays 
for replacing, maintaining, and renovating commissaries.
    There are currently 247 commissaries; 55 percent of these 
commissaries are small stores located in remote or overseas locations, 
but they account for only 20 percent of sales. These stores are often 
the most appreciated stores because there are generally limited options 
available outside the gate of the military installation. With over 98 
million shopper visits annually and approximately $6 billion in sales 
it is evident that people are using this benefit. Eliminating 
commissaries in some areas may be possible but we must fully appreciate 
the impacts on the servicemembers and the community
    Question. In the Ronald W. Reagan NDAA for Fiscal Year 2005, 
Congress required the Secretary of Defense to establish an executive 
governing body for the commissary and exchange systems to ensure the 
complementary operation of the two systems.
    What is your understanding of the purpose and composition of the 
executive governing body?
    Answer. To fulfill the requirement of the law, the Department 
established the DOD Executive Resale Board as the governing body to 
provide advice to the USD(P&R) regarding the complementary operation of 
the commissary and exchange systems. The Board reviews and advises on 
cross-functional matters important to the military resale system. The 
Board is invaluable in leading cooperative efforts and resolving issues 
of concern resulting in increased efficiency and effectiveness of the 
overall system.
    The Board is chaired by the Assistant Secretary of Defense for 
Readiness and Force Management, and members include both the senior 
military officers and civilians who oversee and manage the commissary 
and exchanges systems.
    Question. If confirmed, what would your role be with respect to the 
governing body, and what would your expectations be for its role?
    Answer. If confirmed, I would ensure the Board meets regularly to 
review operational areas of mutual interest to the military resale 
system.
                       civilian personnel systems
    Question. Section 1113 of the NDAA for Fiscal Year 2010 provides 
DOD with extensive personnel flexibilities for its civilian employees 
that are not available to other agencies. In particular, section 
9902(a) of title 5, U.S.C., as added by section 1113, directs the 
Department to establish a new performance management system for all of 
its employees. Section 9902(b) directs the Department to develop a 
streamlined new hiring system that is designed to better fulfill DOD's 
mission needs, produce high-quality applicants, and support timely 
personnel decisions.
    What is your understanding of the current status of the 
Department's efforts to implement the authority provided by section 
1113?
    Answer. The Department's plans for the performance management 
system, workforce incentives, and hiring flexibilities were informed by 
recommendations developed by DOD employees, supervisors, and managers 
representing labor and management from across the Department and 
submitted to the Armed Services Committees at the end of March 2013. 
The collaborative labor-management pre-decisional recommendations for 
the personnel authorities were widely adopted by the Department.
    The Department continues to make good progress on the personnel 
authorities. We are developing the new appraisal system, which will be 
a multi-level rating pattern characterized by a uniform appraisal 
period for covered employees, and the ability to make meaningful 
distinctions in levels of performance. If confirmed, I will continue to 
support the work that is underway to comply with statute.
    Question. If confirmed, will you make it a priority to implement 
these flexibilities in a manner that best meets the needs of the 
Department and promotes the quality of the Department's civilian 
workforce?
    Answer. Yes, if confirmed, I will make it my priority to implement 
those flexibilities that would promote the quality of the Department's 
civilian workforce to ensure accomplishment of the Department's 
missions.
    Question. Section 1112 of the NDAA for Fiscal Year 2010 directs the 
Department to develop a Defense Civilian Leadership Program (DCLP) to 
recruit, train, and advance a new generation of civilian leaders for 
the Department. Section 1112 provides the Department with the full 
range of authorities available for demonstration programs under section 
4703 of title 5, U.S.C., including the authority to compensate 
participants on the basis of qualifications, performance, and market 
conditions. These flexibilities are not otherwise available to DOD.
    Do you agree that the Department needs to recruit highly qualified 
civilian personnel to meet the growing needs of its acquisition, 
technical, business, and financial communities?
    Answer. I completely agree that recruiting highly qualified 
civilian personnel both in mission critical occupations, such as 
acquisition, information technology, and financial management, and in 
leadership positions across the Department is essential to mission 
success.
    Question. In your view, has the existing civilian hiring process 
been successful in recruiting such personnel and meeting these needs?
    Answer. Although I believe the Department currently has a highly 
talented workforce, I wholeheartedly support the initiatives to 
streamline the civilian hiring process. The Department embraces a 
simplified, transparent hiring system that meets the needs of 
stakeholders, attracts quality candidates, and reduces fill-time. We 
are making progress, but there is still work to be done in this area. 
If confirmed, I will ensure the Department continues to actively engage 
in aggressively pursuing continued improvements in the civilian hiring 
process.
    Question. If confirmed, will you make it a priority to implement 
the authority provided by section 1112 in a manner that best meets the 
needs of the Department and promotes the quality of the Department's 
civilian workforce?
    Answer. If confirmed, I will make it a priority to implement the 
authority provided by section 1112. The Department recognizes the need 
for a sound leader-development model to attract, retain, and develop 
civilian leaders to support pipeline readiness, enhance bench strength, 
and promote the quality of the Department's civilian workforce. The 
Department has successfully completed two pilot cohorts under the 
authority provided in section 1112 from which approximately 240 leaders 
have graduated, and who are now credentialed to lead teams and 
projects. If confirmed, I will continue implementing the authority 
provided to ensure a successful framework for developing the next 
generation of innovative leaders to meet the Department's future needs.
                         human capital planning
    Question. Section 115b of title 10, U.S.C., as added by section 
1108 of the NDAA for 2010, requires the Secretary of Defense to develop 
and update in every even-numbered year a strategic human capital plan 
that specifically identifies gaps in the Department's civilian 
workforce and strategies for addressing those gaps. Section 115b 
requires that the plan include chapters specifically addressing the 
Department's senior management, functional, and technical workforce and 
the Department's acquisition workforce.
    Would you agree that a strategic human capital plan that identifies 
gaps in the workforce and strategies for addressing those gaps is a key 
step toward ensuring that the Department has the skills and 
capabilities needed to meet future challenges?
    Answer. Yes. I believe such planning would well position the 
Department to acquire, develop, and maintain the workforce it needs to 
meet current and future mission challenges.
    Question. Do you see the need for any changes in the requirements 
for a strategic human capital plan under section 115b?
    Answer. At this time we appreciate the help of past legislation 
that put the Department on a biennial reporting cycle. We continue to 
progress on meeting the requirements for a strategic human capital plan 
under section 115b, and will continue to institutionalize our processes 
and assess the need for any changes as we continue in this important 
endeavor.
    Question. If confirmed, will you ensure that DOD fully complies 
with these requirements?
    Answer. Yes, if confirmed, I will continue to work toward ensuring 
the Department fully complies with statutory strategic workforce 
planning requirements.
    Question. Since the time that the Department's most recent 
strategic human capital plan was issued, its civilian workforce plans 
have been significantly altered by the changed budget environment and 
extensive efficiencies initiatives.
    What role do you believe human capital planning should play in 
determining where reductions in the civilian workforce can be taken 
with the lowest level of risk?
    Answer. Any reductions in the civilian workforce should be informed 
by the Department's long-term strategic workforce plan to determine 
where reductions can be taken with the lowest level of risk, with the 
understanding that short-term exceptions may be necessary due to 
emerging dynamics in the budget environment. Forecasts for the 
Department's workforce must be based on validated mission requirements 
and workload, both current and projected, and any reductions in the 
civilian workforce must be made in the context of the Total Force and 
directly linked to workload so as to not adversely impact overall 
mission capabilities.
    Question. Would you agree that the strategic human capital plan 
required by section 115b should be updated to more accurately reflect 
the Department's current workforce plans and requirements?
    Answer. Yes. The plan should be updated to be more aligned and 
integrated with the Department's programing and budget process, and 
meet the requirements for a total force mix and competencies 
assessments. In preparing for fiscal year 2013 through 2018, we 
conducted a pilot study that examined the total force mix based on the 
workforce requirement and relationships in high risk mission critical 
occupations. We are also testing and preparing to launch a tool to 
collect competency gap information that will lead to strategies to 
mitigate identified gaps. These processes will take several planning 
cycles, and functional communities are preparing for further assessment 
and implementation.
    Question. What steps if any will you take, if confirmed, to ensure 
that civilian workforce levels are determined on the basis of careful 
planning and long-term requirements, rather than by arbitrary goals or 
targets?
    Answer. If confirmed, I will continue to emphasize that civilian 
workforce levels must be planned based on long-term strategic planning 
requirements. Forecasts for the Department's workforce must be based on 
validated mission requirements and directly linked to workload so as to 
not adversely impact overall mission capabilities.
                    dod civilian personnel workforce
    Question. Section 955 of the NDAA for Fiscal Year 2013 required the 
Secretary of Defense to develop a plan to reduce the size of the 
civilian personnel workforce by 5 percent over the next 5 years. The 
plan developed by the Secretary does not meet this objective. Since the 
time that section 955 was enacted, the Department has implemented 
hiring freezes and furloughs as a result of sequestration. As a result, 
the DOD civilian personnel workforce is substantially smaller than it 
was on the date of enactment or at the time the plan was submitted.
    Do you agree that DOD's civilian employee workforce plays a vital 
role in the functioning of the Department?
    Answer. Yes, the DOD's civilian employee workforce plays an 
instrumental role in the functioning of the Department as part of the 
Total Force across a range of missions. The civilian workforce performs 
key enabling functions for the military, such as critical training and 
preparation to ensure readiness, equipment reset and modernization. 
Civilians also provide medical care, family support, and base operating 
services--all vital to supporting our men and women in uniform. 
Additionally, civilians are on the ``front lines'' supporting missions 
such as intelligence, cyber, reconstruction, and security force 
assistance.
    Question. Do you agree that if sequestration continues through 
fiscal year 2014 and beyond, the Department will need to further reduce 
the size of its civilian workforce?
    Answer. While there is some flexibility afforded the Department in 
managing the steep reductions to the budget required by sequestration, 
the across the board impact of those reductions would likely require 
the Department to further decrease the size of its civilian workforce. 
If confirmed, and to the extent allowed by the sequester, I will work 
to ensure that any reductions to the civilian workforce are balanced 
and executed in the context of the Department's Total Force management 
principles, ensuring the appropriate and most cost effective alignment 
of work.
    Question. In your view, would it be preferable for the Department 
to make planned, prioritized reductions to its civilian workforce, or 
to continue with arbitrary reductions based on hiring freezes and 
workforce attrition?
    Answer. Planned and prioritized reductions to the civilian 
workforce are preferred, such as those reflected in the Department's 
budget request for fiscal year 2014. Those proposed reductions were 
based on a comprehensive workforce to workload analysis. Unfortunately, 
the across the board impact of the sequester along with continued 
budget uncertainty surrounding the Department's annual appropriations 
request has resulted in the need to take extraordinary actions, such as 
the implementation of hiring freezes and furloughs.
      balance between civilian employees and contractor employees
    Question. In recent years, DOD has become increasingly reliant on 
services provided by contractors. As a result of the explosive growth 
in service contracts, contractors now play an integral role in the 
performance of functions that were once performed exclusively by 
government employees, including the management and oversight of weapons 
programs, the development of policies, the development of public 
relations strategies, and even the collection and analysis of 
intelligence. In many cases, contractor employees work in the same 
offices, serve on the same projects and task forces, and perform many 
of the same functions as Federal employees.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of DOD?
    Answer. I believe the Department must have a properly sized and 
highly capable civilian workforce that guards against an erosion of 
critical, organic skills and an overreliance on contracted services, 
particularly in such areas as acquisition program management, 
information technology, and financial management. If confirmed, I will 
continue to support the administration's and Department's focus on 
reducing inappropriate or excessive reliance on contracted support, 
particularly for work that is critical in nature or closely associated 
with inherently governmental functions.
    Question. What steps if any will you take, if confirmed, to ensure 
that DOD is not excessively reliant on contractors to perform its basic 
functions?
    Answer. If confirmed, I will continue to support the 
administration's and Department's focus on gaining a better accounting 
of contracted services. We will review such services annually and 
reduce inappropriate, excessive, or more costly reliance on such 
services. This is of particular importance in instances where 
contractors are found to be performing work that is critical in nature 
or closely associated with inherently governmental functions.
    Question. Section 2330a of title 10, U.S.C., requires DOD to 
maintain an inventory of contract services. Section 321 of the NDAA for 
Fiscal Year 2011 amended this provision to give the USD(P&R) a key role 
in implementing this provision.
    What is your understanding of the current status of the 
Department's efforts to implement the requirements of section 2330a?
    Answer. Since 2011, the Department has made significant 
improvements to its Inventory of Contracts for Services to implement 
the requirements of title 10, U.S.C., section 2330a. Specifically, we 
have improved the accuracy of the required data set by directing cross-
functional (acquisition, financial management, manpower, and requiring 
activities) involvement in the process. We have issued data collection 
guidance and, as recommended by Congress and deployed the Army's proven 
Contractor Manpower Reporting Application software across the entire 
Department. We have also issued specific guidance on how components are 
to review their inventories in order to reduce inappropriate, 
excessive, or more costly reliance on contract services. Also, 
beginning in fiscal year 2014, contractors supporting all components 
will be able to report their labor dollars and related cost 
information, as required by law. We still have more to do. If I am 
confirmed, in order to make the best use of our resources, we will 
continue working with AT&L to improve visibility and accountability of 
contracts for services.
    Question. What additional steps if any will you take, if confirmed, 
to ensure that the Department fully implements the requirements of 
section 2330a?
    Answer. If confirmed, I will continue working with my colleagues in 
AT&L and Comptroller to improve visibility and accountability of our 
contracted services as required by title 10, U.S.C. section 2330a. We 
will soon finalize a governing instruction for managing contract 
services as a part of the Total Force, and, as requested by Congress, 
implement across DOD the Army's standardized service contract approval 
process to be used when considering funding contract support. I will 
also continue to work, as requested by Congress, on implementing the 
Army's automated Contract Manpower Reporting Application across the 
Department, which will help ensure a comprehensive inventory review and 
permit component heads to make greatly improved budget projections for 
contracted services.
                         acquisition workforce
    Question. Section 852 of the NDAA for Fiscal Year 2008 established 
an Acquisition Workforce Development Fund to help DOD address 
shortcomings in its acquisition workforce. The fund provides a 
continuing source of funds for this purpose.
    Do you believe that the DOD acquisition workforce development fund 
is still needed to ensure that DOD has the right number of employees 
with the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. The acquisition workforce development fund has been 
instrumental in the Department's efforts to recapitalize its 
acquisition workforce and improve oversight, management, and 
accountability in the procurements of goods and services. The fund is 
still necessary to further enhance and sustain the training and 
expertise of our dedicated acquisition workforce.
    Question. If confirmed, what steps if any will you take to ensure 
that the money made available through the workforce development fund is 
spent in a manner that best meets the needs of DOD and its acquisition 
workforce?
    Answer. While the management and execution of the acquisition 
workforce development fund is a joint responsibility of AT&L and 
Comptroller, if confirmed, I will work with those offices to ensure 
that the application of resources is done in a manner that is 
consistent with the training, development, and sustainment needs of the 
acquisition workforce.
    Question. Section 872 of the Ike Skelton NDAA for Fiscal Year 2011 
codifies the authority for DOD to conduct an acquisition workforce 
demonstration project and extends the authority to 2017.
    Do you believe it would be in the best interest of the Department 
to extend and expand the acquisition workforce demonstration project?
    Answer. DOD components have expressed a strong interest in an 
expansion of the acquisition workforce demonstration project to better 
meet the workforce challenges they are facing under current budget 
constraints. Testing alternative personnel authorities and processes 
under these difficult conditions will be a true test of their 
effectiveness and I believe there is value in extending and expanding 
this demonstration project. Our role in P&R is to provide the 
warfighter and support staffs with the manpower and personnel 
authorities, processes and tools they need to enable them to carry out 
their missions. If confirmed, I will continue to work with and support 
AT&L in ensuring the demonstration project supports the needs of the 
components and mission of the Department.
    Question. What steps would you take, if confirmed, to implement 
section 872?
    Answer. If confirmed, I will continue to work closely with the 
USD(AT&L) and other Department components to ensure the Department is 
effectively positioned to appropriately extend and expand the 
Acquisition Demonstration project.
                            gi bill benefits
    Question. Congress passed the Post-9/11 Veterans Educational 
Assistance Act in 2008 (``Post-9/11 GI Bill) that created enhanced 
educational benefits for servicemembers who have served at least 90 
days on Active Duty since September 11. The maximum benefit would 
roughly cover the cost of a college education at any public university 
in the country. One purpose of the act was to recognize and reward the 
service of those who served voluntarily after September 11, 
particularly those who do not serve full careers and qualify for 
retirement benefits.
    What is your assessment of the impact of the Post-9/11 GI Bill on 
recruiting and retention, including the provision of transferability 
for continued service?
    Answer. While the Post-9/11 GI Bill program is only 4 years old, 
there are strong indications the program has already had a profound, 
positive impact on recruiting and retention. In fact, as of September 
4, 2013, over 368,875, career servicemembers have transferred their 
Post-9/11 GI Bill benefits to over 795,000 family members.
                    personnel policy implementation
    Question. What is your understanding of your responsibility, if 
confirmed, to inform and consult with this committee and other 
appropriate committees of Congress on the implementation of policies 
directed by law?
    Answer. I understand that I must comply with all requirements to 
inform and consult with requisite congressional committees on the 
implementation of personnel and readiness policies as directed by law.
    Question. What is your understanding of the Department's obligation 
and authority to implement personnel policies to improve efficiency 
within the Department?
    Answer. I understand that the Department, under the direction of 
the Secretary, has both the authority and obligation to evaluate and 
implement personnel policies to improve efficiency within the 
Department. That these policies must not compromise mission readiness 
or essential support of the Total Force.
    Question. What is your understanding on the timeframe in which 
personnel policies directed by law must be implemented by the 
Department?
    Answer. I understand that personnel policies directed by law must 
be implemented by the Department in the timeliest manner possible given 
the available resources and while ensuring the most effective and 
efficient outcome for the Total Force.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the USD(P&R)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
       living quarters allowance for civilian employees overseas
    1. Senator Levin. Secretary Wright, the committee is aware that the 
Department of Defense (DOD) directed an audit of the pay accounts of 
many employees in overseas locations who were receiving a Living 
Quarters Allowance (LQA), and that the audit found that a total of 659 
DOD civilian employees were erroneously paid LQA after having been 
hired overseas. While the authority to provide LQA is found in 
Department of State Standardized Regulations (DSSR), in a May 15, 2013 
memo you announced that DOD would continue to provide LQA for up to 1 
year for affected employees due to unusual circumstances. In addition, 
DOD is providing relief for past LQA debts if employees seek a waiver 
of indebtedness. Did DOD consider extending the waiver of recovery of 
an advance payment of LQA for unusual circumstances beyond the 1-year 
currently granted?
    Ms. Wright. Yes, we considered the LQA eligibility beyond the 1 
year currently granted. However, we also considered that granting 
eligibility for LQA beyond that time could be viewed as an abuse of 
discretion with respect to taxpayer dollars being spent on incentives 
for which employees are otherwise ineligible. We believe that 1 year of 
LQA eligibility is a sufficient period for affected employees to make 
personal decisions in this situation.

    2. Senator Levin. Secretary Wright, are there any legal impediments 
to providing such an extension for the duration of an employee's term 
overseas, and in your view, would it be appropriate to do so?
    Ms. Wright. Up to 1 year of temporary eligibility for LQA has been 
authorized as a means to provide adequate time for employees to make 
arrangements to adjust to the loss of LQA. Continuing beyond that 
period is not appropriate as the affected employees do not meet the 
standard eligibility criteria under the DSSR, DOD Instruction 1400.25, 
Volume 1250, or both.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                          military lending act
    3. Senator Reed. Secretary Wright, the Military Lending Act (MLA) 
authorizes the Secretary of Defense to write regulations defining the 
types of consumer credit products to which the law's 36 percent annual 
percentage rate cap applies, and DOD is currently in the process of 
updating its regulations to close loopholes. These loopholes, such as 
structuring a credit product as an open ended one, have allowed 
predatory lenders to evade the protections afforded to our 
servicemembers under the MLA and, in some cases, charge our 
servicemembers exorbitant triple digit effective interest rates. Are 
these predatory loans that currently fall out of the MLA's purview 
problematic in terms of assuring military readiness?
    Ms. Wright. Predatory lending and abusive lending practices 
compromise our readiness and are of great concern to the Department. 
The passage of the MLA curbed many abusive industry practices. We 
recognize, however, the credit market has changed since our initial 
regulation was published. The Department is, therefore, working closely 
with the prudential regulators including the Federal Deposit Insurance 
Corporation, Consumer Financial Protection Bureau, and the Federal 
Trade Commission, along with other consumer and enforcement agencies. 
We are conducting a top to bottom review of our MLA rules, with a view 
towards strengthening the protections available to military families.
    This rigorous interagency rulemaking process is being further 
informed by public comment and a survey of DOD personnel, legal 
assistance officers, and financial counselors to identify appropriate 
statutory, regulatory, and training responses to problematic practices. 
We anticipate the revised rule will be ready for public comment by the 
end of the calendar year. We are committed to directing servicemembers 
and their families away from potentially harmful credit products and 
towards educational, training, and personal counseling resources that 
the Department provides to support their financial stability.

    4. Senator Reed. Secretary Wright, do you agree that DOD should 
provide our servicemembers with the greatest level of protection under 
the MLA by closing these loopholes?
    Ms. Wright. The Department has revisited and is revising these 
regulations to ensure servicemembers and veterans are protected against 
the credit products that they use most. We recognize the current 
definitions of credit in the regulation are no longer adequate to cover 
the products that are potentially causing concern. Accordingly, DOD has 
organized and led an interagency working group, including all of the 
prudential lenders, to review the regulation with a view toward 
strengthening protections for military consumers. This process is well 
underway and we are making substantial process.
    Our rulemaking efforts are being further informed by public comment 
and a survey of DOD personnel, legal assistance officers, and financial 
counselors to identify appropriate statutory, regulatory, and training 
responses to problematic practices. Relying on this comprehensive data 
from our ``boots-on-the-ground'' subject matter experts in the field, 
we anticipate the revised rule will be ready for public comment by the 
end of the calendar year.
    The Department is also fully engaged in educating servicemembers 
concerning their rights as consumers, so that they are familiar with 
their protections under Federal consumer law, the Servicemembers Civil 
Relief Act, and the MLA. Our efforts to educate servicemembers and 
their families center around installation readiness facilities, 
predeployment and redeployment process facilities, and Reserve 
component mobilization and demobilization processing centers. This 
comprehensive education and training is more sophisticated and detailed 
than it has even been. Therefore, we are confident that our interagency 
rulemaking process, combined with our ongoing financial readiness 
campaign, will provide greater safeguards for our servicemembers and 
their families against predatory and abusive lending practices.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                       living quarters allowance
    5. Senator Nelson. Secretary Wright, in response to the loss of 
overseas LQA for Government civilians, DOD offered those affected the 
opportunity to transfer to the United States under the Priority 
Placement Program (PPP). Can you confirm the priority placement level 
granted to the civilians affected by the erroneous payments of LQA?
    Ms. Wright. Affected employees are being enrolled in the PPP as 
Priority 3 registrants. Priority 3 is generally assigned to registrants 
who are not facing involuntary separation. Higher priority registrants 
are being involuntarily separated, i.e., losing employment altogether. 
As of September 26, 2013, the DOD components have reported that 71 
affected employees have registered in PPP, 4 have accepted job offers, 
and 1 has declined an offer.
    We have taken additional steps for affected employees who choose to 
return Stateside in the absence of LQA. Specifically, we have 
authorized a temporary exception to standard PPP clearance requirements 
that allows DOD components to reassign LQA-affected employees directly 
to State-side vacancies that would otherwise not be filled due to a 
hiring freeze. As of September 26, 2013, the DOD components have 
reported that nine employees have accepted management-directed 
reassignments under this special exception.

    6. Senator Nelson. Secretary Wright, does this category grant the 
affected constituents any advantages over civilians who are not 
affected by the LQA?
    Ms. Wright. Affected employees who choose to register in the PPP 
are registered as a Priority 3. Priority 3 is generally assigned to 
registrants who are not facing involuntary separation. Higher priority 
registrants are being involuntarily separated, i.e., losing employment 
altogether. Unlike other Priority 3 registrants, LQA-affected employees 
may register in the PPP at any time. In order to facilitate as many 
placements as possible, PPP registration procedures were modified to 
accelerate expansion of the registrant's area of referral. Further, the 
Department has authorized a temporary exception to standard PPP 
clearance requirements that allows DOD components to reassign LQA-
affected employees directly to State-side vacancies that would 
otherwise not be filled due to a hiring freeze. As of September 26, 
2013, the DOD components have reported that nine employees have 
accepted management-directed reassignments under this special exception 
to PPP. Also, the components reported that 71 affected employees have 
registered in PPP, 4 have accepted job offers, and 1 has declined an 
offer.

    7. Senator Nelson. Secretary Wright, in light of the sequester and 
hiring freeze, can DOD guarantee available positions for all who choose 
this option?
    Ms. Wright. In an effort to further mitigate the effects of LQA 
cessation, the Department has developed special PPP procedures to 
facilitate the timely rotation of those affected employees who choose 
to return Stateside in the absence of LQA. Most notably, we have 
authorized a temporary exception to standard PPP clearance requirements 
that allows DOD components to reassign LQA-affected employees directly 
to State-side vacancies that would otherwise not be filled due to a 
hiring freeze. As of September 26, 2013, the DOD components have 
reported that nine employees have accepted management-directed 
reassignments under this special exception to PPP. In addition, the 
components have reported that 71 affected employees have registered in 
PPP, 4 have accepted job offers, and 1 has declined an offer.

    8. Senator Nelson. Secretary Wright, will all affected constituents 
who participate in the PPP be able to do so by May 1, 2014?
    Ms. Wright. Yes. We expect affected employees who indicate in a 
timely manner that they wish to return Stateside will be offered 
positions either through PPP or other DOD component reassignment action 
by May 1, 2014. Employees identified in the audit as receiving LQA 
erroneously who choose to return Stateside in the absence of LQA became 
eligible to register in the PPP on June 27, 2013. As of September 26, 
2013, the DOD components reported that 71 employees have registered in 
PPP, 4 have accepted job offers, and 1 has declined an offer. In 
addition to placement through PPP registration, the Department has 
authorized a temporary exception to standard PPP clearance requirements 
that allows DOD components to reassign LQA-affected employees directly 
to State-side vacancies that would otherwise not be filled due to a 
hiring freeze. As of September 26, 2013, the DOD components have 
reported that nine employees have accepted management-directed 
reassignments under this special exception to PPP.
                                 ______
                                 
               Question Submitted by Senator Kay R. Hagan
                    citizen soldier support program
    9. Senator Hagan. Secretary Wright, section 706 of last year's 
National Defense Authorization Act (NDAA) authorized the Secretary of 
Defense to carry out a pilot program to work with community partners on 
this critical health issue. We need to work with local authorities and 
local programs to more effectively tackle this problem. North Carolina 
has such a program--the Citizen Soldier Support Program. Can you please 
assure this committee that you will support and vigorously carry out 
this pilot program that was part of last year's NDAA?
    Ms. Wright. We greatly appreciate the intent of section 706 of the 
NDAA for Fiscal Year 2013 to improve the care for the National Guard 
and Reserve members through community partnership. The Department is 
actively working with the Departments of Veterans Affairs (VA) and 
Health and Human Services to respond to the President's Executive Order 
#13625, ``Improving Access to Mental Health Services for Veterans, 
Servicemembers, and Military Families,'' dated August 31, 2012. Under 
the Executive order, the VA is developing enhanced partnerships and 
fielding pilot programs with community providers to enhance mental 
health services. In addition, DOD and the VA published a National 
Research Action Plan in August 2013, which, among other things, 
recommends strategies, evaluates current efforts, and ensures mental 
health providers in communities nationwide are trained in the most 
current evidence-based methodologies.
    Due to severe budget limitations under the Budget Control Act, the 
Department has not made plans to initiate a separate competitive and 
merit-based award process for a new program under the discretionary 
authority of section 706.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                       living quarters allowance
    10. Senator Shaheen. Secretary Wright, please explain DOD's reason 
for not employing the ``unusual circumstances'' clause beyond May 1, 
2014 to enable the 659 civilians to receive LQA until the end of their 
assignment or until DOD is able to place the person via PPP.
    Ms. Wright. While we consider that 1 year of LQA eligibility is a 
sufficient period for affected employees to make personal decisions 
concerning this situation, we also consider that granting LQA beyond 
that time could be viewed as an abuse of discretion with respect to 
taxpayer dollars being spent on incentives for which employees are 
otherwise ineligible. We expect that employees indicating in a timely 
manner their desire to return State-side will be placed before their 
LQA terminates.

    11. Senator Shaheen. Secretary Wright, would DOD consider putting 
those affected into a higher PPP category than level 3? If not, please 
explain.
    Ms. Wright. Enrolling the affected employees with a higher priority 
was considered but not adopted. Priorities 1 and 2 in the PPP are 
reserved for employees who are being involuntarily separated through no 
fault of their own, which is not the case of employees identified in 
the audit as receiving LQA erroneously.
    However, in an effort to mitigate the effects of LQA cessation, the 
Department has authorized a temporary exception to standard PPP 
clearance requirements that allows DOD components to reassign LQA-
affected employees directly to State-side vacancies that would 
otherwise not be filled due to a hiring freeze. As of September 26, 
2013, the DOD components have reported that nine employees have 
accepted management-directed reassignments under this special exception 
to PPP. In addition, the components have reported that 71 affected 
employees have registered in PPP, 4 have accepted job offers, and 1 has 
declined an offer. The Department has also committed to re-evaluating 
these procedures, as needed, to determine if more aggressive measures 
are necessary to affect the return of these employees from overseas.

    12. Senator Shaheen. Secretary Wright, please provide specifics 
regarding the mechanisms in place that would allow DOD to fill vacant 
positions during a hiring freeze. Are human resources (HR) 
professionals able to see those jobs listed and effectively match 
someone from this group to those jobs?
    Ms. Wright. The Department has authorized a temporary exception to 
standard PPP clearance requirements that allows DOD components to 
reassign LQA-affected employees who choose to return Stateside in the 
absence of LQA directly to State-side vacancies that would otherwise 
not be filled due to a hiring freeze. Operational guidance regarding 
these PPP flexibilities was distributed to the Department's human 
resources community on June 27, 2013. As of September 26, 2013, the DOD 
components have reported that nine employees have accepted management-
directed reassignments under this special exception to PPP. In 
addition, the components reported that 71 affected employees have 
registered in PPP, 4 have accepted job offers, and 1 has declined an 
offer. DOD components are responsible for procedures that will result 
in assignments for their employees.

    13. Senator Shaheen. Secretary Wright, other than being an LQA 
recipient, were there any additional parameters and guidelines used to 
select a target population for erroneous LQA?
    Ms. Wright. Yes. By memorandum of January 3, 2013, I directed DOD 
components to complete an audit of the pay accounts of all locally 
hired employees currently receiving LQA.

    14. Senator Shaheen. Secretary Wright, are the details of the audit 
publicly available to this group under the Freedom of Information Act?
    Ms. Wright. Yes, an employee may request the details of the audit 
as it affects the employee through the Freedom of Information Act 
process.

    15. Senator Shaheen. Secretary Wright, has Thomas v. United States 
(September 7, 2011) played any role in how DOD is handling the current 
LQA issue?
    Ms. Wright. No. Thomas v. United States has not played a role in 
how the Department is addressing the LQA issue. However, we agree with 
the Thomas opinion that if an employee satisfies all the eligibility 
requirements for receiving LQA as established in the DSSR, as well as 
the supplemental criteria established by the DOD in its LQA regulations 
(DODI 1400.25, Volume 1250), that employee may be eligible to receive 
the incentive provided that the Department has made a determination 
that there is a need for the incentive. As noted in Roberts v. United 
States (April 30, 2012), the DSSR expressly delegates authority to 
heads of Federal agencies to implement additional regulations in this 
area. Under that delegation, the Secretary of Defense issued DOD 
Instruction 1400.25, volume 1250, which includes LQA eligibility 
conditions in addition to those outlined in the DSSR. In this 
situation, affected employees either did not meet the DSSR eligibility 
requirements, or those established in Volume 1250, or both.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                                 autism
    16. Senator Gillibrand. Secretary Wright, during our meeting we 
discussed the various options for care for special needs dependents, 
especially those on the autism spectrum. I consider this a readiness 
issue when we start to see servicemembers leave the military in order 
to find better care for their children. After our discussion I still 
have concerns with the level of commitment from TRICARE to adequately 
address the needs of our special needs dependents. If confirmed, do I 
have your commitment to work with me to reform and improve upon the way 
that TRICARE cares for special needs dependents?
    Ms. Wright. I agree that this is a readiness issues and, if 
confirmed, I will work closely with you and other Members of Congress 
on improving TRICARE programs for special needs dependents. DOD 
provides one of the most generous autism benefits in the United States 
through the TRICARE program. All TRICARE family members with a 
diagnosis of Autism Spectrum Disorder are eligible for autism services. 
Active Duty family members are also eligible for Applied Behavior 
Analysis (ABA) reinforcement under the ECHO Autism Demonstration.
    I want to assure you that the Department fully recognizes that 
having a child diagnosed with autism can present significant challenges 
to any family and burden them with changes to nearly every aspect of 
daily family life. TRICARE will continue to pursue efforts to take care 
of our families with special needs and will proceed accordingly based 
on analysis of the best medical evidence available and the results of 
our own demonstration and pilot project.

    17. Senator Gillibrand. Secretary Wright, more than once I have 
heard the excuse that medical data is not available to prove the 
necessity of a specific autism treatment option that is routinely used 
in the civilian sector. Will you commit to reviewing the way TRICARE 
makes these determinations to ensure TRICARE is routinely reviewing the 
latest medical data available?
    Ms. Wright. Yes, we are committed to routinely reviewing the latest 
medical data available. As you may be aware, TRICARE completed the most 
recent review on June 28, 2013. However, TRICARE has deferred a final 
decision pending reassessment based on experience under the ABA Pilot 
and any other pertinent new information. During this interim period, 
TMA will continue ABA coverage under the Basic Program per existing 
policy as well as continue periodic reviews as new data and evidence 
become available.

                             mental health
    18. Senator Gillibrand. Secretary Wright, the last issue we 
discussed was the issue of mental health, including the stigma 
surrounding post-traumatic stress disorder (PTSD), as well as the rates 
of suicide in our Services. I receive the monthly suicide data and am 
saddened to see the number of servicemembers who fall through the 
cracks in the system. If confirmed, what are your plans to improve upon 
suicide prevention throughout DOD?
    Ms. Wright. At every level of leadership, DOD recognizes the 
complex nature of suicide and the widespread outreach effort that is 
needed to tackle this problem. My plan to improve suicide prevention 
across the Department has already begun on several fronts. First, we 
are working closely with the Department of Veterans Affairs on a 
standard and consistent message for the Military Crisis Line, which is 
available in the United States, Europe, Korea and Afghanistan. I plan 
on adding Japan.
    We have adopted a peer support model through Vets4Warriors that 
offers case management, referrals, and support to all who need it. We 
have provided a multitude of training and educational events worldwide 
to prevent suicide and build resilience among our military and civilian 
workforce and to involve their families. I intend to continue our 
support for these events and will ensure that the Defense Suicide 
Prevention Office (DSPO) is fully engaged in providing materials and 
resources. Suicide prevention research is a priority and efforts to 
better understand the nature of military suicide risk factors and 
interventions are underway. Finally, I am committed to working with the 
Services to ensure that access to care is available for all who seek 
it, regardless of where they are located.

    19. Senator Gillibrand. Secretary Wright, I am also concerned about 
the reports of suicide among military dependents. What is DOD doing to 
prevent these suicides?
    Ms. Wright. The Department is equally concerned and extremely 
saddened by these reports. We are moving quickly with our outreach 
efforts to increase awareness and ensure that the right resources and 
programs are brought to bear at the right time to address the 
challenges of our families. Our military families have done all that 
has been asked of them, serving honorably and faithfully in support of 
their servicemember. Now it is part of the Department's solemn 
commitment to them that we do everything in our power to reach out and 
help those family members.
    The provisions of the NDAA for Fiscal Year 2014 section on Suicide 
and Military Families helped focus the efforts of the Defense Suicide 
Prevention Office (DSPO) to determine the prevalence of and prevention 
strategies for military family member suicides. DSPO facilitates a 
working group of subject matter experts charged with developing a 
deliberate and comprehensive strategy for measuring the prevalence and 
incidence of suicides among military dependents. DSPO has identified 
several surveillance options that would give us a clearer understanding 
of the risk factors involved and is continuing to work with the Defense 
Manpower Data Center and the Centers for Disease Control and Prevention 
(CDC) to also examine a possible relationship between military 
dependent and servicemember suicides. This critical work will inform 
what the suicide prevention needs of our military families are to 
better align programs and resources to help those in need. The results 
of these efforts and a plan to assess suicide among military families 
and its impact on servicemembers will be presented in a report to 
Congress due by April 1, 2014.
    In addition to providing a full spectrum of resources available to 
help military families with the stressors they face before they face a 
crisis, DOD is directing both servicemembers and families to the 
``Supporting Military Families in Crisis'' guide which provides family 
members with information on suicide warning signs and risk factors, 
actions to take when a family member is in crisis, and available 
resources to promote a healthy lifestyle and build a resilient family. 
The guide is available online at www.suicideoutreach.org.

    20. Senator Gillibrand. Secretary Wright, what resources are needed 
to improve suicide prevention among military dependents?
    Ms. Wright. DOD is committed to providing and promoting a wide 
range of programs and services that enhance Service and family member 
resilience which help eliminate or manage many of the stressors that 
can contribute to crisis behaviors including suicidal ideation. This 
multidisciplinary approach includes Morale, Welfare, and Recreation 
(MWR) programs that alleviate stress; financial readiness counseling, 
child care solutions, relationship management and spouse employment 
initiatives; as well as suicide prevention support, crisis counseling, 
and direct intervention programs to rescue and restore families in 
crisis. We are currently assessing these programs to determine what 
additional efforts are required to provide the most effective suite of 
resources to our servicemembers and their families. We will continue to 
inform and work with Congress if we need additional resources or 
authorities to better support our servicemembers and dependents.

    21. Senator Gillibrand. Secretary Wright, just this week General 
Dempsey said, ``Men and women should have the opportunity to overcome 
their mental disorders or their mental health challenges and shouldn't 
be stigmatized. A man or woman should have the ability with treatment 
to overcome their challenges and then to have a fruitful life and gain 
employment, including inside the military.'' What is being done to 
ensure our servicemembers are getting the appropriate screening for 
PTSD and the appropriate follow-up care?
    Ms. Wright. DOD enacted a deployment mental health assessment 
process that requires comprehensive person-to-person mental health 
assessments at four time points: (a) within 120 days of deployment; (b) 
between 90 and 180 days after return from deployment; (c) between 180 
days and 18 months after return from deployment; and (d) between 18-30 
months after return from deployment. These assessments comply with 
requirements in the NDAA for Fiscal Year 2012, section 702, and NDAA 
for Fiscal Year 2013, section 703, and are performed either by licensed 
mental health professionals or by designated individuals trained and 
certified to perform the assessments. To date, more than 9,000 
providers have been trained and certified to administer deployment 
mental health assessments.
    The deployment mental health assessments include an analysis of 
self-reported responses to mental health questions on symptoms of 
depression, PTSD, and alcohol misuse; detailed follow-up on positive 
responses to previous mental health diagnoses and medication use; and 
exploration of other reported emotional, life stress, and mental health 
concerns. During a confidential dialog with the servicemember, the 
provider conducts an assessment of the risk for suicide or violence, 
offers education on relevant mental health topics, administers brief 
interventions, and makes recommendations for follow-up assessment and 
care, when indicated. Servicemembers who are identified as needing 
additional assessment or treatment for PTSD are referred for 
appropriate follow-up care at a military medical treatment facility, 
Veterans Affairs Medical Center or Vet Center, through the TRICARE 
Purchased Care Network, or in the community, depending on the 
servicemember's duty status and personal preference.
    In addition to these pre- and post-deployment mental health 
assessments, symptoms of PTSD, depression, alcohol abuse, and other 
mental health concerns are routinely assessed during annual health 
assessments and during regular medical appointments with primary care 
providers. DOD has increased mental health staffing by 35 percent over 
the last 3 years, and has embedded mental health providers within 
primary care clinics to increase access to care and support early 
identification of PTSD and other mental health concerns.

                                 cyber
    22. Senator Gillibrand. Secretary Wright and Ms. James, the cyber 
field is a fast-paced, ever-changing arena. If confirmed, what steps 
will you take to ensure we are recruiting the best and the brightest to 
this field?
    Ms. Wright. The growth, sustainment, and long-term career 
progression of a talented cyberspace workforce is critical to defend 
the Nation in this domain. If confirmed, I will continue to support 
ongoing initiatives for identifying and recruiting personnel with the 
appropriate cyberspace talents. I will also review current recruiting 
and retention challenges and explore options for meeting these 
challenges. My focus will include both military and civilian workforce 
concerns.

    23. Senator Gillibrand. Secretary Wright and Ms. James, what 
authorities will be needed to keep the U.S. military on the cutting 
edge of cyber?
    Ms. Wright. The Department is currently reviewing the authorities 
required to maintain superiority in this domain.
    If confirmed, I will explore human capital or specialty shortfalls 
in the cyberspace defense career fields and, where needed, pursue 
recruiting and retention authorities which allow the Department to 
ensure we are recruiting and keeping the best and brightest in this 
field.

                        dod-va records transfer
    24. Senator Gillibrand. Secretary Wright, in your advance policy 
questions you were asked several questions about how DOD is 
coordinating with the Department of Veterans Affairs (VA) on records 
transfers. I am grateful for your strong commitment to this issue, and 
would like to continue to work with you to ensure our transitioning 
servicemembers do not fall through the cracks. While I understand that 
each side has issues to work through in coordinating with the other, 
what more can DOD do to ensure our veterans have a smooth transition 
from DOD to the VA?
    Ms. Wright. The most important thing DOD can do to assist VA is to 
ensure the information needed to reduce disability claims processing 
times is available in a timely and accurate manner. We have done 
everything VA has asked us to, and we continue to meet regularly with 
them to seek ways to further refine information exchange processes. We 
have a number of key information sharing enablers, which include the 
electronic health record and the Health Artifact and Image Management 
Solution, and the paperless DD Form 214 initiative, that are being 
developed for both personnel and medical record data. As these enablers 
become available, we will continue to collaborate with VA to refine 
processes to realize the full potential of these initiatives.
    We work closely with VA to ensure servicemembers understand the 
benefits for which they are eligible and how to apply for and access 
those benefits. We have recently implemented a new Transition 
Assistance Program and VA is a key part of that curriculum. We continue 
to register new recruits and transitioning servicemembers for DOD Self-
Service (DS) Logon Accounts that allow access to the VA eBenefits 
portal.
    We anticipate that these enhancements to data exchange and greater 
servicemember access to the benefits for which they are eligible will 
be smooth and make their transition from the military a seamless 
experience. If confirmed, I will continue to monitor these efforts as 
one of my priorities.

    25. Senator Gillibrand. Secretary Wright, is there a need for 
increased resources?
    Ms. Wright. No, not at the current time. However, we will continue 
to inform and work with Congress if we need additional resources or 
authorities to better support our servicemembers and dependents.

                  integrated electronic health records
    26. Senator Gillibrand. Secretary Wright, I would also like an 
update on where plans stand for an integrated electronic health records 
system. I know that earlier plans for a shared system were scrapped in 
favor of finding a way to link the existing systems at DOD and the VA. 
Has there been progress in this new plan?
    Ms. Wright. Yes. Under the leadership of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, we have established 
both a program office and appointed a full-time, dedicated Program 
Executive Officer to ensure timely and efficient execution of our 
Integrated Electronic Healthcare Records (IEHR) near-term efforts and 
our Defense Healthcare Management System Modernization (DHMSM) program. 
In addition to continuing the near-term IEHR efforts, we are 
aggressively working on the DHMSM acquisition and contracting strategy 
with a goal of releasing an initial draft of the Request For Proposal 
by the end of this calendar year.
    The Department is committed to the seamless transfer of electronic 
health care data between DOD and VA. Continuity of care is a key 
component of quality health care, and interoperability between DOD and 
VA's electronic health record data is essential to enabling this 
continuity. Achieving health record data interoperability and exchange 
is possible regardless of the software systems used by DOD and VA. A 
critical near-term effort we are undertaking is the data 
interoperability ``accelerators'' initiative. The first increment of 
these ``accelerators'' is on track to complete by December 2013, so 
providers have improved access to data. Near-term progress includes:

        <bullet> In partnership with the VA, we identified the national 
        standards-based data formats and initiated the DOD and VA data 
        mapping required to standardize patient data for seven of the 
        highest priority data domains.
        <bullet> DOD and VA have agreed to use a common Health Data 
        Dictionary as a mechanism to translate current DOD and VA 
        medical information into national standards. This will further 
        increase our data sharing and interoperability moving forward.
        <bullet> We have completed the deployment of the Janus Joint 
        Viewer to nine sites, including the five VA Polytrauma and 
        Rehabilitation Centers and two Level-5 Military Treatment 
        Centers, and expanded the use of the Joint Viewer at two 
        additional sites. This viewer provides clinicians with easier 
        access to healthcare data from all the sites where the patient 
        has been treated in the DOD or VA.

    Modernizing both Departments' legacy clinical information systems 
is the next step in providing seamless interoperability. VA is planning 
to modernize its VistA system and use it as the basis of its future 
health care management system core software. There are logical business 
reasons for VA's decision to stay with VistA: VA has a large installed 
VistA base, a large in-house staff that maintains and programs software 
for VistA, and a workforce that is experienced and trained to manage 
the system. DOD is not in the same position and has operational 
requirements that differ from those of the VA. Under the restructured 
DHMSM program, DOD will pursue a competitive process to select its core 
from the vibrant EHR marketplace to deliver a best-value solution. DOD 
will leverage national standards and open architecture design 
principles to preserve flexibility, and help foster a thriving, 
competitive marketplace. It is worth noting that our recent market 
analysis has identified some VistA-based offerings from multiple 
companies. These offerings are technically mature EHR solutions, and we 
will like see proposals from them for DOD consideration.
                                 ______
                                 
             Questions Submitted by Senator Mazie K. Hirono
                        recruiting and retention
    27. Senator Hirono. Secretary Wright, what are the impacts of 
sequestration on recruitment and retention for the uniformed military?
    Ms. Wright. Recruiting and retaining the All-Volunteer Force 
requires the commitment to adequately resource our efforts. 
Sequestration has created a level of budget uncertainty that makes this 
much more challenging. The improving economy will provide potential 
recruits and members currently serving in the military greater 
opportunities to work or serve outside the military. This, compounded 
by reduced discretionary funds for enlistment and retention bonuses, 
will make attracting and retaining the highest quality force more 
challenging.
    Furthermore, the negative impact of sequestration on operations and 
training may discourage the best and brightest from joining the 
military and discourage retention of our most talented service men and 
women. Any negative impacts to recruitment and retention will impact 
the ability of our servicemembers to execute our national security 
strategy, which is hinged upon being the most technologically advanced, 
best equipped, and most highly trained force in the world.

                          impacts of furlough
    28. Senator Hirono. Secretary Wright, for our valued civil servants 
in DOD, the furloughs have created difficult situations for many. What 
are the impacts on recruitment and retention of our civil service 
employees?
    Ms. Wright. Although the full effects may take time to materialize, 
but we know sequestration has negatively impacted the morale of our 
civilian workforce and caused significant stress for them and their 
families. We also expect that the continued budget uncertainties the 
Department faces will inhibit our ability refresh the workforce and may 
cause our most experienced workers to consider leaving the Department. 
The impact on recruitment and retention will affect readiness across 
the Department. The Department hopes that Congress will enact a 
balanced deficit reduction plan that the President can sign that 
eliminates sequestration and the resulting impact to our civilian 
workforce.

                            command climate
    29. Senator Hirono. Secretary Wright, a command climate survey can 
go a long way in determining how effective a unit is and whether or not 
negative actions such as sexual harassment are tolerated and/or 
reported. What is your opinion of the current climate surveys?
    Ms. Wright. The Defense Equal Opportunity Climate Survey (DEOCS) is 
designed specifically for the purpose of assessing organizational 
climate and works exceedingly well. The survey can be administered in 
different ways (on-line or paper/pencil) and the results are produced 
in minimum time. The DEOCS has evolved over several years and was 
developed by the Defense Equal Opportunity Management Institute in 
coordination with the Defense Manpower Data Center.
    The DEOCS is well-validated and continues to evolve to address 
current human relations issues. It is currently the survey instrument 
of choice by the Army, Navy, and Marine Corps. Air Force, which has 
used its own unit climate assessment instrument in the past, plans to 
begin using DEOCS in the near future.

    30. Senator Hirono. Secretary Wright, should climate surveys be 
kept to monitor potential long-term issues?
    Ms. Wright. The Department currently maintains historical survey 
data which help us identify potential long-term issues and provide 
organizational-wide insight into the effectiveness of leadership 
actions. We would expect climate survey to be used in the same manner 
by component leadership.

    31. Senator Hirono. Secretary Wright, should climate surveys be 
tied to the commander's permanent personnel records so as to monitor 
performance as a leader? What about other assessments such as 360 
evaluations?
    Ms. Wright. I do not believe it is necessary to include climate 
survey results or assessments in an officer's permanent record. With 
the recent Secretary of Defense mandate requiring that annual command 
climate survey results be provided to the next level up in the chain of 
command we will be better postured to assess unit climate. 
Additionally, there are other measures in evaluation and performance 
reports that give us a clear understanding of individual's leadership 
capability and potential. For example, an officer's overall annual 
performance evaluations which are tied to effectiveness with regard to 
meeting organization objectives and goals.
    Currently used by some DOD organizations, 360 evaluations also 
provide a comprehensive feedback of overall management style and assess 
broad competencies such as teamwork, leadership skills, and 
communication effectives; however are used primarily for assessing 
future professional development and are not generally included in 
permanent personnel records.

                           commissary benefit
    32. Senator Hirono. Secretary Wright, what is your assessment of 
the current state of the Defense Commissary System?
    Ms. Wright. The commissary continues to be one of the most popular 
non-pay compensation benefits enjoyed by military members and their 
families. As an integral element of the total compensation package, 
commissaries enhance quality of life for military families and provide 
an excellent return on investment. Last fiscal year, the commissary 
provided direct savings to customers of over $2.8 billion for a 
taxpayer cost of $1.4 billion.
    However, between the Department-wide hiring freeze and employee 
furloughs, commissary customer service has suffered. With the high 
turnover rate of lower-graded employees in commissaries, the hiring 
freeze quickly reduced the manning in 69 percent of stores below the 90 
percent level. Over a dozen stores fell below 75 percent manning; and 
two were manned at 60 percent or lower. The recent sequestration-driven 
furlough, which led to the closing of most stores for 1 day a week for 
6 weeks, further impacted customers. Customer complaints rose by over 
50 percent and hit an all-time high during the furlough. Excellent 
commissary customer service suffered as customers found long check-out 
lines, empty shelves, and employees dealing with their own personal 
economic challenges due to a 20 percent pay reduction. That reduction 
was particularly hard on store-level employees, many of whom are part-
time employees.

    33. Senator Hirono. Secretary Wright, what is the benefit as a 
value in terms of recruiting and retention?
    Ms. Wright. A number of surveys have concluded that commissaries 
rate highly among quality of life factors contributing to retention in 
the military. A GAO survey found that commissaries ranked #2 by 
enlisted personnel and #3 by officers as a reason to stay in the 
military. In our 2009 Status of Forces Survey, 90 percent of Active 
Duty personnel report they use the commissary, and 81 percent of those 
who use the commissary shop monthly or more frequently. Our surveys 
also show a majority of Active Duty members believe the commissary 
offers better safety and security than other stores in the community.
    The commissary gives military personnel peace of mind, particularly 
when we place them in harm's way, knowing that their families have the 
support they need in a safe and secure shopping environment. Also, the 
commissary employs a large number of military dependents and provides a 
sense of community. Military personnel appreciate that commissary 
managers and employees understand the challenges and sometimes 
difficult life borne by military families. Therefore, I believe that 
this benefit has a great value to our servicemembers and their 
families.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                         sexual assault survey
    34. Senator Inhofe. Secretary Wright, if confirmed, will you commit 
to directing that an independent survey be conducted on sexual assault 
in the military, using an experienced outside organization that 
specializes in surveys, to design, conduct, and analyze survey results, 
with a goal of establishing clear, objective data and metrics that can 
be used to measure progress on eliminating sexual assault in the 
military?
    Ms. Wright. If confirmed, I agree to look at this issue. I am 
firmly committed to improving the Department's efforts to prevent and 
respond to sexual assaults in the military. If confirmed, I will look 
at how the Department conducts its sexual assault survey, to include 
the methodology used.

                              hollow force
    35. Senator Inhofe. Secretary Wright, are you concerned about the 
reemergence of a hollow force?
    Ms. Wright. The potential for hollowing of the force is always a 
concern in times of fiscal constraint and drawdown. Readiness 
degradations driven by manpower, equipment and training shortfalls are 
of prime importance to us and we work constantly with the Joint Staff 
and Services to monitor trends and indicators related to potential 
hollowing. ``Hollowness'' in the 1970s and 1990s was driven primarily 
by excess force structure, recruiting/retention shortfall, increased 
optempo, and underfunded training accounts. If confirmed, I intend to 
monitor these potential problems closely to ensure we do not hollow our 
great force.

    36. Senator Inhofe. Secretary Wright, as the President's nominee 
what guidance or instruction, if any, were you provided on how to 
address the onset of a hollow force?
    Ms. Wright. The Secretary of Defense made readiness an imperative 
as we began planning for lower budgets and reduced endstrength nearly 3 
years ago. Since then, the imperative to monitor, manage, and protect 
both near- and long-term readiness remains strong. If confirmed, I will 
be responsible for providing the Secretary and Deputy Secretary a 
regular accounting of our current readiness status, the associated 
risks, and options for mitigating that risk. In executing this 
responsibility, I would be required to focus not only the status and 
risks of the units, but also the status and the risks associated with 
the pipelines that support our ability to properly man, train, and 
equip our forces. Historically, it has been problems in these pipelines 
that create the most durable readiness degradations.

    37. Senator Inhofe. Secretary Wright, if confirmed, what measures 
would you use to identify the extent of a hollow force for the 
Secretary of Defense?
    Ms. Wright. In order to preserve the health and viability of our 
All-Volunteer Force, we must ensure that our readiness, force structure 
and modernization remain balanced. If confirmed, I will work closely 
with the Services to ensure their force management plans fully optimize 
both short-term readiness and long-term modernization/procurement 
efforts as they implement force structure reductions.
    Additionally, we must give particular attention to protecting the 
Services' pipeline processes that are critical to generating 
warfighting capabilities. Metrics gauging the health of these pipelines 
are the most valuable readiness/hollowness metrics because they cover 
the breadth of man/train/equip concerns and typically provide our best 
forecasts. Manpower metrics include measures of individual training, 
recruit quality, experience, and manning levels for critical 
occupations. Equipment metrics include availability rates, failure 
rates, repair rates, spares fill, unit fill, and depot throughput. 
Training metrics include individual and unit proficiency, graduate-
level (collective training) unit/individual training accomplishment, 
and even range viability metrics.

                           civilian workforce
    38. Senator Inhofe. Secretary Wright, how will DOD manage the 
civilian workforce in the next fiscal year under sequestration?
    Ms. Wright. The Department must continue to effectively manage our 
civilian workforce to ensure we maintain the appropriate mix of skill 
sets, and related experience, to maintain the readiness of our 
military. Our goal is to shape the workforce in a manner that minimizes 
adversity to our valued and talented civilian workforce. The Department 
hopes that Congress will enact a balanced deficit reduction plan that 
the President can sign which eliminates sequestration.

    39. Senator Inhofe. Secretary Wright, what workforce management 
tools may DOD use if faced with another year of a sequestered budget--
more furloughs, reductions in force, or early retirements?
    Ms. Wright. The Department must continue to effectively manage our 
civilian workforce to ensure we maintain the appropriate mix of skill 
sets, and related experience, to maintain the readiness of our 
military. Our goal is to shape the workforce in a manner that minimizes 
adversity to our valued and talented civilian workforce.
    The Department is currently operating under hiring restrictions and 
will continue to do so under sequestration. Workforce management tools 
such as Voluntary Separation Incentive Pay and Voluntary Early 
Retirement Authority, have been authorized and encouraged, both of 
which are valuable in reducing involuntary separations and associated 
costs.
    The Department hopes that Congress will enact a balanced deficit 
reduction plan that the President can sign which eliminates 
sequestration.

    40. Senator Inhofe. Secretary Wright, will DOD consider exempting 
working capital fund employees from furloughs if it still faces a 
sequestered budget in fiscal year 2014?
    Ms. Wright. At the present time there is no plan to 
administratively furlough DOD employees in fiscal 2014. The Department 
hopes that Congress will enact a balanced deficit reduction plan that 
the President can sign which eliminates sequestration.

    41. Senator Inhofe. Secretary Wright, pay freezes and furloughs may 
cause young people not to consider a career in DOD. What tools can DOD 
use to incentivize young professionals to choose a career of service in 
DOD?
    Ms. Wright. The Department continues to use available recruiting 
methods and programs, such as Pathways, to attract young professionals. 
In addition, the Department continues to offer the Student Loan 
Repayment Program, Training and Professional Development opportunities, 
and many other benefits that promote a healthy work life balance.

    42. Senator Inhofe. Secretary Wright, does DOD need additional 
recruiting authorities to compete for top young talent in the current 
job market?
    Ms. Wright. The Department has adequate authorities in place to 
assist us with competing for top young talent in the current job 
market. However, the time it takes to hire Federal employees as well as 
hiring restrictions under which the Department is currently operating, 
impact our ability to compete for top talent. The Department is 
continuously reviewing our authorities and programs so that we remain 
an employer of choice among young professionals.

    43. Senator Inhofe. Secretary Wright, we have received reports of 
medical professionals leaving DOD because they are fed up with pay 
freezes and furloughs. We also hear that DOD doctors and nurses have 
chosen to leave DOD to work for the VA. If confirmed, will you advocate 
for exemption of civilian medical professionals from furloughs if DOD 
faces another year under sequestration?
    Ms. Wright. During the past furlough period, I asked my staff to 
carefully monitor Medical Treatment Facility operations and advise me 
if they saw any evidence that we were experiencing challenges in 
meeting our health care obligation to our beneficiary population, 
including Wounded Warriors. After the first few furlough days, a need 
to request additional furlough exceptions began to take shape. At the 
same time, due to a combination of Congressional approvals and 
Departmental budget management efforts, we were able to reduce furlough 
for most DOD civilians from 11 days (88 hours) to 6 days (48 hours). 
Our civilian medical professionals are back to their pre-furlough 
schedules providing all of the critical services.
    We are still assessing the extent of damage caused by sequestration 
and the associated furloughs and, while no decisions have been made 
about the need for future furloughs or exceptions at this time, I will 
continue to be vigilant in maintaining our health care obligations and 
apply the lessons learned from the past furlough experience. I am 
committed to our patients and our staff and seek to minimize their 
inconvenience and maintain an exceptional ``care experience'' and 
``work experience'' for both groups. This commitment will remain the 
Department's core theme as we address financial challenges in the 
future.

    44. Senator Inhofe. Secretary Wright, in your opinion, does DOD 
need additional pay authorities to better compete with the VA civilian 
medical professionals?
    Ms. Wright. The Department does not need additional pay authorities 
to better compete with the VA civilian medical professionals. DOD has 
the authority of section 1599c of title 10, and DOD and the Office of 
Personnel Management have a July 31, 2006, Delegation Agreement 
authorizing the use of title 38 (VA) pay tables for DOD civilian health 
professionals.

                          religious expression
    45. Senator Inhofe. Secretary Wright, in your answer to the advance 
policy questions, you responded that ``[s]ervicemembers are entitled to 
have personal views and to express them in personal conversations; 
however, servicemembers are not entitled to use their official capacity 
as a forum to express their personal views. Servicemembers who express 
personal views when speaking in an official capacity may be held 
accountable for what they say.'' Is it your understanding of DOD policy 
that sincerely held beliefs cannot be expressed if they differ from DOD 
policy?
    Ms. Wright. Expressions of sincerely held religious beliefs in 
personal conversations are permissible and considered as protected 
religious speech until such expressions disrupt the mission, have an 
adverse impact on good order and discipline, have the appearance of 
coercion, or can reasonably be regarded as suggesting DOD endorsement 
of religion.

                           same sex benefits
    46. Senator Inhofe. Secretary Wright, you stated in your 
confirmation hearing that the September 4 same-sex policy memorandum 
would only apply to opposite-sex couples in very rare cases. What 
important military interest is advanced by a policy that benefits same-
sex couples but not opposite-sex couples?
    Ms. Wright. The September 4 memorandum on the policy clarification, 
which applies to same-sex couples and opposite-sex couples, allows 
administrative time off for individuals who cannot get legally married 
within 100 miles of where they are assigned. As I acknowledged during 
my confirmation hearing, there may well be a few occasions where an 
opposite-sex couple would run up against this issue, but that does not 
invalidate my belief that the policy is fair and equitable to all.
    We have bases and installations in all 50 States and around the 
globe. However, many servicemembers are assigned in remote or isolated 
locations, and we learned that not all local laws are equal when it 
comes to marriage-regardless of sexual orientation. While this policy 
may apply in fewer situations for opposite sex couples than it might 
for same sex couples, it facilitates travel for any disadvantaged 
servicemember seeking a legal marriage, when local laws or policies 
prevent that member from obtaining a legal marriage locally.

                                  pay
    47. Senator Inhofe. Secretary Wright, what would be the impact on 
readiness if Congress authorizes a 1.8 percent pay increase instead of 
the 1 percent requested by the administration?
    Ms. Wright. The 1 percent basic pay raise requested in the 
President's budget recognizes the sacrifices by the men and women in 
our Armed Forces, while adhering to the current budget constraints 
faced by DOD. This pay raise proposal was a tough decision reached by 
the senior leaders of the Department (including the uniformed military 
leadership) after carefully weighing other options for saving the $0.6 
billion in fiscal year 2014 and nearly $3.5 billion through fiscal year 
2018 generated by this 0.8 percent pay raise adjustment. If Congress 
authorized the full 1.8 percent military basic pay increase, the 
Department would have to impose deeper reduction to troop levels as 
well as to readiness and modernization accounts for training or 
equipping our forces.

    48. Senator Inhofe. Secretary Wright, what would you do, if 
confirmed, to mitigate the impact of a 1.8 percent pay increase for 
military personnel and a 1 percent increase for civilian personnel, on 
overall military readiness?
    Ms. Wright. The administration requested a 1.0 percent basic pay 
increase for military personnel. Because military compensation today 
compares favorably with compensation in the private sector, the 
Department does not believe the additional 0.8 percent military basic 
pay increase is necessary to sustain recruiting and retention. If 
Congress were to authorize an additional 0.8 percent increase in basic 
pay for military personnel, it would cost an additional $580 million in 
fiscal year 2014 (including $40.0 million for Contingency Operations 
funding) and nearly $3.5 billion through fiscal year 2018. As these 
costs are not offset, the Department would be forced to pay for this 
additional military pay increase by reducing military end strength 
beyond the drawdown already planned and further cutting funds for 
training and equipping our forces. At a time when statutory spending 
caps require defense reductions, there is no viable means to mitigate 
these readiness impacts if the higher pay raise is enacted.
    In regards to a 1.0 percent increase for civilian personnel, the 
administration included this increase in its budget for fiscal year 
2014, the Department does not believe it will adversely affect military 
readiness, thus mitigation will not be necessary. However, if confirmed 
I will work with my staff to ensure any impacts to overall military 
readiness are mitigated.

                  family support programs and services
    49. Senator Inhofe. Secretary Wright, what impact has sequestration 
had on: (1) child development center programs; (2) child and youth 
programs; (3) commissary and exchange services; (4) recreation 
programs; and (5) civilian spouse employment programs?
    Ms. Wright. (1) (2) Child development center programs at the 
installation level were excepted from civilian furloughs and child and 
youth programs continued to operate with no change in service. The 
Military Services reduced the weekly cost of care for families affected 
by the furlough. Child and youth recreation programs saw little to no 
effect since these programs are primarily funded through 
Nonappropriated Funds (NAF).
    (3) Sequestration had a direct impact on our commissary patrons and 
employees. With the Department-wide hiring freeze and employee 
furloughs, commissary customers often found long checkout lines, closed 
registers, and empty shelves. The closure of most stores for 1 day a 
week for 6 weeks because of the furloughs impacted customers further. 
Customer complaints rose by over 50 percent and hit an all-time high 
during the furlough. While Defense Commissary Agency employees 
struggled to continue their previously excellent customer service, they 
could not always overcome the challenges. The impact of sequestration 
on the exchange services has been minor because they operate as 
nonappropriated funded activities and receive little appropriated fund 
support.
    (4) Sequestration has caused sustained reductions to recreation 
programs (MWR) that negatively impact future readiness, resilience, and 
retention. The Military Services indicate they are energetically 
working to identify economies and efficiencies to minimize the fiscal 
uncertainty created by sequestration driven funding cuts, and are 
focusing the limited appropriated fund dollars available on their most 
essential programs and services. However, we are seeing reductions to 
hours of operation and staff, increased user fees, and consolidation of 
similar facilities and programs. Installation MWR programs are also 
collaborating with local communities, schools, and business entities to 
maximize the availability of programs and services, and many are 
evaluating low usage programs for potential elimination.
    (5) Spouse employment programs at military installations were not 
able to provide full career and education services due to a shortage of 
personnel and reduced operating hours resulting from civilian furloughs 
and hiring freezes. Services for military spouses provided by the 
Spouse Education and Career Opportunities Program were generally not 
impacted by civilian furloughs because it is under an already funded 
contract.

    50. Senator Inhofe. Secretary Wright, how will family support 
programs and services be affected if sequestration continues in the 
future?
    Ms. Wright. We have seen the impacts of sequestration across all 
programs through reduced levels of service, hours, and higher prices 
directly impacting our servicemembers and their families. We will 
strive to protect family programs; however, the continuation of 
sequestration will limit our ability to maintain the current levels of 
family support and to respond to new requirements resulting from 
continued deployments and the downsizing of forces. Programs that 
promote well-being and enhance readiness are often provided by civilian 
employees who are especially vulnerable to hiring freezes, furloughs, 
and reduced funding.
    A symbiotic relationship exists between the commissaries, 
exchanges, and MWR programs that comprise the complex interdependent 
military resale system. MWR programs depend on the dividends generated 
through the exchange services. Appropriated fund reductions in any area 
would have negative impacts on the entire military resale system 
jeopardizing the availability, quality, and savings of these to the 
military servicemembers and their families.
    We continue to review more efficient and cost effective ways of 
doing business while providing the programs and services valued by our 
servicemembers and their families. No one wants to negatively impact 
the lives of servicemembers and their families; however, the fiscal 
realities of sequestration are forcing the Department and the Military 
Services to make some very tough decisions.

                        military health systems
    51. Senator Inhofe. Secretary Wright, earlier this year, DOD issued 
a Resource Management Decision directing the Assistant Secretary of 
Defense for Health Affairs to conduct a comprehensive review of 
Military Health System's (MHS) capabilities and requirements. Recently, 
the Navy advised the committee that it plans to realign eight medical 
treatment facilities to enhance efficiency, improve quality of care, 
and enhance provider training opportunities. When will this committee 
receive a briefing on the outcome of the comprehensive review of MHS 
capabilities and requirements?
    Ms. Wright. The review of the MHS's capabilities and requirements 
is ongoing and the results will feed into the fiscal year 2015 Program 
Review. The results of this review of capabilities and requirements 
will be available during the rollout of the fiscal year 2015 
President's budget. We look forward to briefing the committee of the 
review outcome after the submission of the fiscal year 2015 President's 
budget.

    52. Senator Inhofe. Secretary Wright, was the Navy's decision to 
realign facilities a result of this review?
    Ms. Wright. The Navy's assessment of their facilities was completed 
prior to the start of the MHS's capabilities and requirements review. 
Their results were included as a part of the review's deliberations. 
The Navy, along with the Army and Air Force, continuously evaluate the 
match between beneficiary demand and medical capabilities. Our 
assessments and results will be included in the fiscal year 2015 
President's budget.

    53. Senator Inhofe. Secretary Wright, how has this review impacted 
the medical facilities of the Army and Air Force?
    Ms. Wright. The assessment is still ongoing and the final results 
will be included in the fiscal year 2015 President's budget.

    54. Senator Inhofe. Secretary Wright, will any Army or Air Force 
medical facilities be realigned in the future?
    Ms. Wright. The assessment is ongoing and the final results will be 
included in the fiscal year 2015 President's budget.

                integrated disability evaluation system
    55. Senator Inhofe. Secretary Wright, in your opinion, what can DOD 
and the VA can do to further reduce disability claims processing times?
    Ms. Wright. The most important thing DOD can do to assist VA is to 
ensure the information needed to reduce disability claims processing 
times is available in a timely and accurate manner. In order to meet 
this goal we will actively pursue a long-term vision of a paperless 
record keeping environment. If confirmed, I will continue to work 
closely with the VA to refine processes to take full advantage of 
information sharing we are putting in place.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                       living quarters allowance
    56. Senator Chambliss. Secretary Wright, my staff is working with 
several Georgia constituents who are DOD civilians affected by a 
January 2013 DOD audit which determined they were no longer eligible to 
receive a LQA. The audit determined that, through no fault of their 
own, 659 DOD civilians in Europe ``erroneously'' received this 
incentive pay and that DOD would attempt to recover the overpayments, 
in many cases in the hundreds of thousands of dollars. Most of these 
civilians accepted their Federal positions with an understanding that 
LQA, and other associated benefits, were a term or condition of 
employment--they would not have accepted the job otherwise. Moreover, 
this incentive pay was certified, and often certified multiple times, 
by HR personnel who are intimately familiar with governing regulations 
and policies.
    As you can imagine, this determination is having significant impact 
on the affected employees and their families. While I appreciate DOD 
efforts to mitigate the impact--an expedited process to waive the debt, 
exceptions to the hiring freeze under the PPP, and a 1 year extension 
of LQA through May 2014--the worst case scenario would find us in June 
2014 with a sizable number of affected civilian employees still at the 
current duty station, unable to find suitable employment elsewhere due 
to hiring restrictions, responsible for moving their families and 
personal property at their own expense, and living under the shadow of 
repaying a large debt. In my opinion, this is not how we should treat 
our civilian employees, in particular on the heels of the fiscal year 
2013 DOD civilian furlough.
    If confirmed, will you make it a personal priority to ensure that 
the affected employees are extended every possible opportunity to 
secure follow-on employment with return travel and transportation 
agreements covered under Joint Federal Travel Regulations?
    Ms. Wright. Yes, if I am confirmed this will continue to be a high 
priority of mine and has the full attention of my office. So far, the 
waiver process is proving successful in alleviating debt for employees 
who file requests for relief of the debt. Additionally, we have offered 
a temporary exception to the PPP to facilitate return placements. 
Return travel and transportation may still be provided to employees 
meeting the return transportation conditions upon hiring or, 
alternately, though management-directed reassignment or PPP placement.

    57. Senator Chambliss. Secretary Wright, ultimately the error for 
this overpayment falls on DOD--either through an incorrect policy 
determination or by the officials who incorrectly certified LQA 
eligibility. How did this happen and who is being held accountable?
    Ms. Wright. This situation occurred through process errors made at 
a local DOD component servicing human resources offices. We are in the 
process of addressing the matter. Looking forward, we want to ensure 
that our LQA regulations are clear. To that end, by the end of this 
year, my staff will complete a comprehensive review of the Department's 
overseas benefits and allowances regulation. Further, the DOD 
components with the responsibility to train servicing human resources 
specialists on making benefits and pay determinations must ensure they 
are doing so correctly through audits or similar oversight means.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                 national guard youth challenge program
    58. Senator Ayotte. Secretary Wright, what is your plan to provide 
standardized, national training for the frontline staff of the National 
Guard Youth Challenge Program (NGYCP) in fiscal year 2014?
    Ms. Wright. I understand the importance of frontline staff 
training; therefore, if I am confirmed, the Office of the Assistant 
Secretary of Defense for Reserve Affairs will continue to work with the 
Office of the Chief of the National Guard Bureau and the State Adjutant 
Generals to identify ways to provide standardized training to the NGYCP 
staff in an efficient and cost-effective manner. During these difficult 
budgetary times and uncertainty, the Department's first priority is to 
try to fully support funding of the NGYCP at the maximum DOD cost share 
of 75 percent to ensure continued operations and cadet development. 
This work will involve reviewing all current methods implemented by the 
National Guard Bureau for delivering NGYCP staff training, including 
existing training programs funded by DOD and other Federal, State, and 
local agencies that may be provided to NGYCP staff. Once requirements 
are validated, we will be able to determine best method, schedule, and 
provider.

    59. Senator Ayotte. Secretary Wright, for years, mental health 
training was provided to National Guard Youth mentors but now that is 
no longer the case. Will you examine the possibility of restoring 
mental health training for National Guard Youth Challenge mentors?
    Ms. Wright. Yes, as part of our fiscal year 2014 review of the 
standardized training for the NGYCP, we will work with the Office of 
the Chief of the National Guard Bureau and the State Adjutant Generals 
to examine the possibility of restoring mental health training for 
mentors participating in the NGYCP.

               sequestration and its impact on readiness
    60. Senator Ayotte. Secretary Wright, General Welsh has recently 
said that under sequestration, the Air Force would be unable to execute 
the 2012 Strategic Planning Guidance that requires the military to 
fight one major adversary and deter another. General Welsh also told 
airmen stationed in Japan that the Air Force would ``not be as ready as 
we would like'' if ordered to take action against the Syrian regime. Do 
you agree with General Welsh's assessments?
    Ms. Wright. I agree with General Welsh's assessments regarding the 
Air Force's ability to respond to emerging contingencies. The Air Force 
entered sequestration at historically low readiness levels. This steady 
readiness decline resulted from over 20 years of high operational tempo 
supporting combatant commanders' requirements fighting the ``low-end'' 
wars of the last decade, coupled with reduced funding to their 
readiness accounts. Sequestration made this situation worse by forcing 
combat units to stand down and the cancellation of exercises and 
training courses.

    61. Senator Ayotte. Secretary Wright, what are your greatest 
readiness concerns if sequestration goes forward in 2014?
    Ms. Wright. My primary concern is the Department's ability to 
maintain a force that can satisfy both our current operational 
commitments as well as provide ready forces for contingencies that are 
critical for responding to an emergent major theater operation. So far, 
we have gone to great lengths to protect our ability to do current 
operations; our risk and my main area of concern lies with our ability 
to surge a ready force.
    In keeping with this concern, we know that sequestration has forced 
the Department to make hard choices between drawing down force 
structure and paring back modernization programs. Furthermore, 
reductions in our training and professional development programs will 
have a long-term detrimental effect on maintaining proficiency and 
experience within our ranks. These short-term effects will have longer-
term implications that will not be easily reversed even with additional 
resources.

    62. Senator Ayotte. Secretary Wright, General William Shelton, 
Commander of Air Force Space Command, recently said that sequestration 
threatens to ``break every program'' in the U.S. military space 
enterprise. Do you share his concern?
    Ms. Wright. I share General Shelton's concerns regarding the 
effects sequestration may have on numerous Defense programs. The 
immediate effects of sequestration are beginning to be felt and are 
impacting programs throughout the Department.

                       living quarters allowance
    63. Senator Ayotte. Secretary Wright, DOD has been working with 
Congress and the employees in U.S. European Command to achieve a 
workable solution to the LQA issue. I am concerned that the employees' 
concerns are not being addressed completely. Many of the employees are 
concerned with future employment opportunities and the cost associated 
with moving back to the United States. How many employees have been 
given Priority 3 or 3a status?
    Ms. Wright. All employees identified in the audit as receiving LQA 
erroneously who choose to return Stateside in the absence of LQA have 
been eligible to register in the PPP since June 27, 2013. As of 
September 26, 2013, the DOD components have reported that 71 affected 
employees have registered in PPP, 4 have accepted job offers, and 1 has 
declined an offer.
    The Department has also authorized a temporary exception to 
standard PPP clearance requirements that allows DOD components to 
reassign LQA-affected employees directly to State-side vacancies that 
would otherwise not be filled due to a hiring freeze. As of September 
26, 2013, the DOD components have reported that nine affected employees 
have accepted management-directed reassignments under this special 
exception to PPP.
    In addition, an affected employee generally will be eligible for a 
paid move back to the United States if returned Stateside as a result 
of a directed reassignment by the employee's DOD component, if placed 
through the PPP, or if the employee is a retired military member whose 
final authorization for return travel has not expired.

    64. Senator Ayotte. Secretary Wright, how many employees have been 
given Priority 1 or 2 status?
    Ms. Wright. All employees identified in the audit as receiving LQA 
erroneously have been eligible to register in the PPP since June 27, 
2013, as a Priority 3. Priorities 1 and 2 are reserved for employees 
who are being separated involuntarily, i.e., losing employment 
completely. As of September 26, 2013 the DOD components have reported 
that 71 affected employees have registered in the PPP, 4 have accepted 
job offers, and 1 has declined an offer. This is not the only procedure 
to facilitate the timely rotation of those affected employees who 
choose to return Stateside in the absence of LQA. Most notably, the 
Department has authorized a temporary exception to standard PPP 
clearance requirements that allows DOD components to reassign employees 
directly to Stateside vacancies that would otherwise not be filled due 
to a hiring freeze. As of September 26, 2013, the DOD components have 
reported that nine affected employees have accepted management-directed 
reassignments under this special exception to PPP.

    65. Senator Ayotte. Secretary Wright, in Thomas v. United States 
(Sept. 7, 2011), the court ruled that ``The Court disregards the other 
regulations and guidance's implemented pursuant to the DSSR insofar as 
they conflict with the DSSR. DODI [Department of Defense Instruction], 
the Army Corps Memorandum, and AER 690-500.592 conflict with the DSSR 
because they give the agency discretion to disallow a living quarters 
allowance when the DSSR provisions would otherwise mandate the 
allowance.'' Did the Thomas case play a role in how DOD is addressing 
the LQA issue?
    Ms. Wright. No. Thomas v. United States has not played a role in 
how the Department is addressing the LQA issue. However, we agree with 
the Thomas opinion that if an employee satisfies all the eligibility 
requirements for receiving LQA, and if the Department makes a 
determination that there is a need for LQA, the incentive may be 
properly paid, as evidenced by those employees properly granted LQA 
after being recruited from the United States. Eligibility criteria 
include that which is stated in the DSSR, as well as the criteria 
established by the DOD in its LQA regulations. In a subsequent opinion 
to Thomas, the Court noted in Roberts v. United States (April 30, 
2012), that the DSSR expressly delegates authority to heads of Federal 
agencies to implement additional regulations in this area. Under that 
delegation, the Secretary of Defense issued DOD Instruction 1400.25, 
volume 1250, which includes LQA eligibility conditions in addition to 
those in the DSSR. In this situation, affected employees either did not 
meet the DSSR eligibility requirements, or those established in volume 
1250, or both.

    66. Senator Ayotte. Secretary Wright, given the Office of Personnel 
Management Compensation Claim Decision (OPM File No. 12-0020), is DOD 
concerned about pecuniary liability due to the Thomas ruling?
    Ms. Wright. No, as affected employees in this situation either did 
not meet the DSSR, or those established in DOD Instruction 1400.25, 
Volume 1250, or both.

    67. Senator Ayotte. Secretary Wright, has DOD received any 
reimbursement claims related to Thomas? If so, how many?
    Ms. Wright. To my knowledge, there have been no reimbursement 
claims received by the Department.

    68. Senator Ayotte. Secretary Wright, has DOD estimated potential 
liability due to the Thomas case? If so, what is the cost estimate?
    Ms. Wright. The Department has not estimated potential liability. 
However, we have estimated that it will cost approximately $23 million 
to grant temporary LQA eligibility to affected employees for 1 year.

    69. Senator Ayotte. Secretary Wright, in Roberts v. United States 
(April 30, 2012), the Court stated that the LQA-granting authority has 
been further delegated within DOD, but in addition to having met the 
DSSR requirements, the DOD agency ``must first designate the position 
as eligible for LQA''. Were any of the positions held by the employees, 
who were deemed to have erroneously received LQA payments, designated 
as LQA eligible?
    Ms. Wright. DOD Instruction 1400.25, volume 1250, delegates 
authority to the Heads of DOD components to make LQA determinations. 
Each DOD component may determine in advance of filling an overseas 
position whether there is a need for LQA, and which is normally based 
on an ability to fill the position without the incentive. However, 
employees filling positions deemed appropriate for LQA must meet the 
eligibility requirements in order to receive the incentive.

    70. Senator Ayotte. Secretary Wright, in both the DSSR and DODI 
1400.25 there is an allowance for a waiver based upon ``unusual 
circumstances''. Was this the basis for the 1-year waiver that you 
granted to all LQA audit affected employees?
    Ms. Wright. Yes, the DSSR provision for waivers based on unusual 
circumstances was used for authorizing temporary LQA eligibility for 
affected employees. I believe that 1 year is sufficient time for the 
employees to make personal decisions concerning their situations, and 
to be placed in a State-side position, if they so choose. Providing the 
incentive beyond that time could be viewed as an abuse of discretion 
with respect to taxpayer dollars being spent on incentives for which 
employees are otherwise ineligible.

    71. Senator Ayotte. Secretary Wright, does the DSSR or the DODI 
1400.25 place any time condition or constraints upon this waiver?
    Ms. Wright. No. To mitigate the financial effects of loss of LQA, I 
granted all employees identified in the audit as receiving LQA 
erroneously temporary eligibility for LQA for up to a 1-year time 
period to allow them opportunity to plan a future without the 
incentive. This period was determined to be reasonable under the 
circumstances. Further, the Department has supported individual 
employee requests for waivers of the indebtedness as long as there is 
no evidence of misrepresentation, fraud, or deception on the part of 
the employee to receive LQA initially; delayed collection of the 
indebtedness created by the receipt of LQA erroneously (for those 
employees who choose to request a waiver) until the waiver process is 
complete; and authorized flexibilities under the PPP to assist 
employees who choose to return Stateside in the absence of LQA. As of 
September 26, 2013, 400 waiver requests have been submitted, 112 full 
waivers have been approved, and no requests have been disapproved.

    72. Senator Ayotte. Secretary Wright, is there any legal reason 
that would stop you from utilizing this waiver in order to solve this 
issue on a more long-term basis?
    Ms. Wright. To mitigate the financial effects of loss of LQA, I 
granted all employees identified in the audit as receiving LQA 
erroneously temporary eligibility for LQA for up to a 1 year time 
period to allow them opportunity to plan a future without the 
incentive. This period was determined to be reasonable under the 
circumstances. Further, the Department has supported individual 
employee requests for waivers of the indebtedness as long as there is 
no evidence of misrepresentation, fraud, or deception on the part of 
the employee to receive LQA initially; delayed collection of the 
indebtedness created by the receipt of LQA erroneously (for those 
employees who choose to request a waiver) until the waiver process is 
complete; and authorized flexibilities under the PPP to assist 
employees who choose to return State-side in the absence of LQA. As of 
September 26, 2013, 400 waiver requests have been submitted, 112 full 
waivers have been approved, and no requests have been disapproved.

    73. Senator Ayotte. Secretary Wright, U.S.C. title 10, chapter 163, 
section 2773a, gives DOD the authority to hold processing officials 
pecuniary liable. DOD Regulation 7000 further states that ``The 
Secretary of Defense may subject a departmental official to pecuniary 
liability for an improper or incorrect payment made by DOD, if the 
Secretary determines that such payment resulted from information or 
services provided'' to a certifying official. Has DOD scrutinized the 
certifying or authorizing officials who made, according to a DOD 
Inspector General report, $57 million in erroneous payments?
    Ms. Wright. The DOD Financial Management Regulations (FMR) 
7000.14R, volume 5, chapter 33, section 3309, which states a certifying 
officer is pecuniarily liable for payments resulting from improper 
certifications, is not applicable in this situation. A certifying 
officer as defined in the FMR does not certify the supporting document 
authorizing the LQA entitlement, and thus is not liable for these 
erroneous payments.

    74. Senator Ayotte. Secretary Wright, when an individual who 
received the erroneous payments signs the waiver form, does this waiver 
also release DOD officials from any liability in association with that 
payment?
    Ms. Wright. No, signing of the waiver form by an individual only 
affects the individual employee.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                        religion in the military
    75. Senator Lee. Secretary Wright, what do you understand to be the 
difference between evangelizing, which is allowed by DOD, and 
proselytizing, which is not allowed?
    Ms. Wright. DOD has no policy that directly addresses religious 
evangelizing and proselytizing. Servicemembers may exercise their 
rights under the First Amendment regarding the free exercise of 
religion unless doing so adversely affects good order and discipline, 
or some other aspect of the military mission; even then, the Department 
seeks a reasonable religious accommodation for the servicemember. In 
general, servicemembers may share their faith with other servicemembers 
in unofficial settings, but may not forcibly attempt to convert others 
to their own beliefs. Concerns that may arise regarding these issues 
are handled on a case-by-case basis by the leaders of the unit 
involved, in consultation with Chaplains and legal advisors.

    76. Senator Lee. Secretary Wright, how are these differences 
explained to commanders in the military, and do you believe it is 
consistently applied?
    Ms. Wright. Chaplains from the Military Departments are directly 
involved in the training of commanders. This training includes 
discussion and guidelines concerning the balance of freedoms for 
servicemembers with religious beliefs as well as those with no 
religious belief. Due to this training, expressions of free speech and 
religious practice are consistently applied across the Military 
Departments.

                  erroneous living quarters allowance
    77. Senator Lee. Secretary Wright, the Office of the Secretary of 
Defense and your office have stated that the erroneous payments to 
civilian employees living overseas and receiving LQA payments were made 
``through no fault of the individual''. Why did DOD give these payments 
erroneously and who is being held at fault for the erroneous payments?
    Ms. Wright. This situation occurred through errors made by 
individual employees assigned to a DOD component servicing human 
resources offices, and we are in the process of addressing the matter. 
Looking forward, we want to ensure that our LQA regulations are clear. 
By the end of this year, my staff will complete a comprehensive review 
of the Department's overseas benefits and allowances regulation. 
Further, the DOD components with the responsibility to train servicing 
human resources specialists on making benefits and pay determinations 
must ensure they are doing so correctly through audits or similar 
oversight means.

    78. Senator Lee. Secretary Wright, when the employee who has 
received erroneous payments signs the waiver for their debts, does the 
waiver also release DOD officials from any liability in association 
with the payment?
    Ms. Wright. No, signing of the waiver form by an individual only 
affects the individual employee.
                                 ______
                                 
    [The nomination reference of Hon. Jessica G. Wright 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 18, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jessica Garfola Wright of Pennsylvania, to be Under Secretary of 
Defense for Personnel and Readiness, vice Erin C. Conaton, resigned.
                                 ______
                                 
    [The biographical sketch of Hon. Jessica G. Wright, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
           Biographical Sketch of Jessica L. (Garfola) Wright
Education:
    Alderson Broaddus College, September 1971-June 1974

        <bullet> Bachelor of Arts Degree awarded June 1974
        <bullet> Honorary doctorate in Public Service awarded 2004

    Webster University, St Louis, MO, School of Business and Technology

        <bullet> Masters Degree in Management awarded June 1993

    Army War College, Carlisle Barracks, PA

        <bullet> Military Fellowship at the Center for Strategic and 
        International Studies, Washington, DC, June 1997
Employment record:
    U.S. Department of Defense, Office of the Secretary of Defense

        <bullet> Acting Under Secretary of Defense for Personnel and 
        Readiness
        <bullet> January 2013-present

        <bullet> Acting Principal Deputy Under Secretary of Defense for 
        Personnel and Readiness
        <bullet> October 2012-January 2013

        <bullet> Assistant Secretary of Defense (Reserve Affairs)
        <bullet> May 2012-0ctober 2012

        <bullet> Acting Principal Deputy Assistant Secretary of Defense 
        (Reserve Affairs)
        <bullet> Deputy Assistant Secretary of Defense for Reserve 
        Affairs (Manpower and Personnel)
        <bullet> November 2010-May 2012

    Commonwealth of Pennsylvania, Army National Guard

        <bullet> Adjutant General of Pennsylvania and Commander of the 
        Pennsylvania National Guard
        <bullet> February 2004-November 2010

        <bullet> Assistant Adjutant General/Deputy Adjutant General-
        Army, Pennsylvania Joint Force Headquarters
        <bullet> May 2000-February 2004

        <bullet> State Army Aviation Officer, Headquarters, State Area 
        Command
        <bullet> October 1998-May 2000

        <bullet> Commander, 28th Combat Aviation Brigade, 28th Infantry 
        Division, Fort Indiantown Gap, PA
        <bullet> June 1997-November 1998

    U.S. Army War College

        <bullet> Military Fellowship at the Center for Strategic and 
        International Studies, Washington, DC
        <bullet> August 1996-June 1997

    National Guard Bureau, Headquarters

        <bullet> Chief of the Personnel Service Division, Army National 
        Guard personnel directorate
        <bullet> Chief of the Tours Management Office, Army National 
        Guard personnel directorate
        <bullet> Executive Officer and Chief of the Budget and Services 
        Branch
        <bullet> Personnel Staff Officer
        <bullet> February 1989-August 1996

    State of Georgia, Army National Guard

        <bullet> Assistant Professor of Military Science, Georgia 
        Southern College, Statesboro, GA
        <bullet> November 1986-January 1989

    State of Georgia, Army National Guard

        <bullet> 1160th Transportation Company (Heavy Helicopter), 
        Flight Operations Platoon Commander
        <bullet> September 1985-November 1986

    Commonwealth of Pennsylvania, Army National Guard

        <bullet> 1028th Transportation Company (Heavy Helicopter), 
        Flight Operations Platoon Commander
        <bullet> Eastern Army National Guard Aviation Training Site, 
        Assistant Operations and Training Officer and Flight Operations 
        Officer
        <bullet> January 1982-September 1985

    Commonwealth of Pennsylvania, Army National Guard

        <bullet> 228th Aviation Company, UH-1 and CH-47 pilot
        <bullet> 28th Aviation Battalion, Adjutant
        <bullet> September 1979-December 1981

    Commonwealth of Pennsylvania, Army National Guard

        <bullet> CH-47 Aviator Qualification Course
        <bullet> CH-54 Aviator Qualification Course
        <bullet> Officers Rotary Wing Aviator Course at Fort Rucker, AL
        <bullet> February 1977-August 1979

    Commonwealth of Pennsylvania, Army National Guard

        <bullet> Headquarters and Headquarters Detachment, Press 
        Officer, Recruiting and Retention/Equal Opportunity Operations 
        Officer, Staff Advisor
        <bullet> Women's Army Corps Officer Orientation/Officer 
        Candidate School at Fort McClellan, AL
        <bullet> January 1975-January 1977
Honors and awards:
    Distinguished Public Service Medal
    Distinguished Service Medal
    Legion of Merit (with Oak Leaf Cluster)
    Meritorious Service Medal (with one Bronze Oak Leaf Cluster)
    Army Commendation Medal
    Army Achievement Medal
    Army Reserve Component Achievement Medal (with one Silver Oak Leaf 
Cluster and one Bronze Oak Leaf Cluster)
    National Defense Service Medal (with one Bronze Star)
    Global War on Terror Service Medal
    Armed Forces Reserve Medal (with Gold Hourglass)
    Army Service Ribbon
    Army Staff Identification Badge
    Senior Army Aviator Badge
    Pennsylvania Commendation Medal
    Pennsylvania Service Ribbon (with two Silver Stars)
    Pennsylvania 20 Year Medal (with two Silver Stars)
    Major General Thomas R. White Jr. Medal
    General Thomas J. Stewart Medal
    Governor's Unit Citation
    Lithuanian Medal of Merit
    Order of St. Michael
    Order of St. Joan of Arc
    ATHENA Recipient
    Gold Medallion - Chapel of the Four Chaplains
    Law and Justice Award - Sons of Italy
    Gold Medal Award - Pennsylvania Association of Broadcasters
    Honorary Doctorate - Peirce College
    Haym Solomon Award
    Military Person of the Year - Veteran Community Initiatives, Inc.
    Distinguished Soldier Award - Union League of Philadelphia
    Founders Day Award - Lebanon Valley College
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Jessica 
G. Wright in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jessica Lynn Wright, Maiden Name: Garfola.

    2. Position to which nominated:
    Under Secretary of Defense (Personnel and Readiness).

    3. Date of nomination:
    July 18, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 2, 1952; Charleroi, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Charles Edwin Wright.

    7. Names and ages of children:
    Philip Michael Wright, age 23.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Alderson-Broaddus College. 1970-1974, BA, May 1974
    Webster University, 1991-1993, MA, June 1993

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    1 January 2013-Present: Acting Under Secretary of Defense 
(Personnel and Readiness), The Pentagon
    16 Oct 2012-31 Dec 2012: Acting Principal Deputy, Under Secretary 
of Defense (Personnel and Readiness), The Pentagon
    25 May 2012-15 Oct 2012: Assistant Secretary of Defense for Reserve 
Affairs, The Pentagon
    08 November 2010-24 May 2012: Department of Defense Deputy 
Assistant Secretary of Defense, RA (Manpower and Personnel); 1 June 
2011 also assumed the duties ``Acting'' Principal Deputy Assistant 
Secretary of Defense, Reserve Affairs, The Pentagon
    February 2004-November 2010: The Adjutant General Commonwealth of 
Pennsylvania, Fort Indiantown Gap, PA
    June 2000-February 2004, Deputy Adjutant General--Army Commonwealth 
of Pennsylvania, Fort Indiantown Gap, PA

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    National Guard Association of the United States--Member
    Pennsylvania National Guard Association of the United States--
Member
    Association of the U.S. Army--Member
    Army Aviation Association of America--Member

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Distinguished Public Service Medal
    Distinguished Service Medal
    Legion of Merit (with Oak Leaf Cluster)
    Meritorious Service Medal (with one Bronze Oak Leaf Cluster)
    Army Commendation Medal
    Army Achievement Medal
    Army Reserve Component Achievement Medal (with one Silver Oak Leaf 
Cluster and one Bronze Oak Leaf Cluster)
    National Defense Service Medal (with one Bronze Star)
    Global War on Terror Service Medal
    Armed Forces Reserve Medal (with Gold Hourglass)
    Army Service Ribbon
    Army Staff Identification Badge
    Senior Army Aviator Badge
    Pennsylvania Commendation Medal
    Pennsylvania Service Ribbon (with two Silver Stars)
    Pennsylvania 20 Year Medal (with two Silver Stars)
    Major General Thomas R. White Jr. Medal
    General Thomas J. Stewart Medal
    Governor's Unit Citation
    Lithuanian Medal of Merit
    2000 ATHENA Recipient
    2004 Honorary Doctorate - Alderson Broaddus College
    2005 Gold Medallion - Chapel of the Four Chaplains
    2005 Law and Justice Award - Sons of Italy
    2006 Gold Medal Award - Pennsylvania Association of Broadcasters
    2008 Honorary Doctorate - Peirce College
    2009 Military Person of the Year - Veteran Community Initiatives, 
Inc.
    2009 Distinguished Soldier Award - Union League of Philadelphia
    2010 Founders Day Award - Lebanon Valley College

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    One article on ARNG Aviation published in the National Guard 
Association of the United States magazine. (2010)

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I gave multiple speeches during my time as Adjutant General of the 
PA National Guard. I do not have copies. I have given speeches as ASD-
RA and Acting USO-PR from talking points and notes.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Jessica G. Wright.
    This 12th day of September, 2013.

    [The nomination of Hon. Jessica G. Wright was reported to 
the Senate by Chairman Levin on September 24, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was returned to the President at the end of the first session 
of the 113th Congress, on January 6, 2014, under provisions of 
Senate Rule XXXI, paragraph 6, of the Standing Rules of the 
Senate.]
                              ----------                              

    [Prepared questions submitted to Mr. Frank G. Klotz by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                       duties and qualifications
    Question. What background and experience do you possess that you 
believe qualify you to perform the duties of the Under Secretary for 
Nuclear Security and Administrator of the National Nuclear Security 
Administration (NNSA)?
    Answer. I served on Active Duty in the U.S. military for nearly 39 
years. The majority of my assignments dealt either with nuclear field 
operations--including maintenance, security, and safety--or with 
nuclear policymaking at the national and international levels.
    I have also had extensive experience leading large organizations 
with technically-complex missions and a diverse, highly-skilled 
workforce. As the first commander of Air Force Global Strike Command, I 
helped establish and lead a brand new organization that merged 
responsibility for all U.S. nuclear-capable bombers and missiles under 
a single chain-of-command. Within the space of only 14 months, we 
defined the organization's vision and values, recruited 800 highly-
talented professionals into a new headquarters, took charge of 5 major 
installations and 23,000 people; and strengthened accountability at all 
levels. Earlier in my career, I was second in command of Air Force 
Space Command when it had responsibility for the Nation's 
intercontinental ballistic missile force. At that time, AFSPC comprised 
39,400-persons charged with responsibility for developing, acquiring 
and operating a global network of launch, satellite control, 
communications, and missile warning facilities.
    Since retiring from Active Duty, I have worked as a Senior Fellow 
at the Council on Foreign Relations and participated in several ``Track 
2'' conferences and workshops, most notably with the Committee on 
International Security and Arms Control of the U.S. National Academy of 
Sciences. These activities have deepened my understanding of the 
nuclear capabilities and policies of other nations, as well as the 
dangers posed by nuclear proliferation, regional arms races, and the 
threat of nuclear terrorism.
    All of these experiences bear directly on NNSA's broad mission set, 
as well as the challenges of leading an organization of its size and 
scope. I am grateful to President Obama and Secretary Moniz for their 
trust and confidence in providing me an opportunity to continue to 
serve and contribute to the critically important tasks of ensuring that 
our Nation's nuclear arsenal remains safe, secure, and effective, and 
enhancing nuclear security across the globe.
    Question. What changes, if any, do you anticipate in these duties, 
if you are confirmed for the position?
    Answer. I do not anticipate any changes to these duties of Under 
Secretary for Nuclear Security or NNSA Administrator if I am confirmed.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Under 
Secretary for Nuclear Security?
    Answer. Based on my previous operational and policymaking positions 
within the Nation's nuclear enterprise--including leadership of large, 
technically complex organizations--I personally believe that I am ready 
now to assume the duties of Under Secretary for Nuclear Security. 
However, I have always believed in the need for and value of life-long 
learning and constantly seeking new, innovative solutions. If 
confirmed, I will immediately and continuously engage with all elements 
of the NNSA enterprise--specially the directors of the national 
security laboratories, plants, headquarters, and field offices--to 
broaden and deepen my understanding of NNSA's capabilities, 
requirements, and challenges. I also intend to regularly consult with 
Members of Congress and their staffs to better understand their 
concerns and to benefit from their insights on NNSA, its mission, and 
its issues.
    Question. Assuming you are confirmed, what additional or new duties 
and functions, if any, do you expect that the Secretary of Energy would 
prescribe for you other than those described above?
    Answer. The Secretary of Energy has not indicated to me that he 
intends to prescribe any additional or new duties and functions. 
However, if confirmed, I would serve at the pleasure of the President 
and Secretary of Energy and in accordance with the laws enacted by 
Congress, and would obviously perform any additional or new duties and 
functions they might assign.
                             relationships
    Question. If confirmed, how will you work with the following 
officials in carrying out your duties:
    The Secretary of Energy.
    Answer. I share Secretary of Energy Moniz's strong belief in the 
importance of NNSA's mission and its many contributions to the Nation's 
security, as well as the urgent need to address program management, 
cost overruns, and security. If confirmed, I will work with him in a 
collaborative manner and, as stipulated in the NNSA Act, ``subject to 
the authority, direction, and control of the Secretary.''
    Question. The Deputy Secretary of Energy.
    Answer. If confirmed, I will also work closely with Deputy 
Secretary Dan Poneman and subject to the ``authority, direction and 
control'' delegated by the Secretary to the Deputy Secretary in 
accordance with the NNSA Act.
    Question. The Deputy Administrators of the National Nuclear 
Security Administration.
    Answer. I consider the Deputy Administrators--along with the 
directors of the national security laboratories, plants, and field 
offices--as an integral part of NNSA's leadership team. If confirmed, I 
will work with the Deputy Administrators and Associate Administrators 
to promote better internal communication and collaboration; clarify 
lines of authority, responsibility and accountability; eliminate 
duplication of effort and streamline processes; and, professionally 
develop the NNSA workforce and recognize its employees for their 
important contributions to the organization and to the Nation.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)).
    Answer. If confirmed, I expect to work closely with the USD(AT&L) 
on a wide range of issues, including sustaining a safe, secure, and 
effective nuclear deterrent; countering the threat of nuclear terrorism 
and nuclear proliferation; and, enhancing capabilities to manage 
nuclear incidents both domestically and abroad. Additionally, I am 
committed to fostering a renewed sense of trust and partnership between 
the NNSA and the Department of Defense, both through the effective 
operation of the Nuclear Weapons Council, as well as open and 
collaborative interaction by the staffs of both departments. I have 
worked closely with OSD(AT&L) in the past and have enormous respect for 
the expertise and professionalism of its leadership and personnel.
    Question. The Under Secretary of Defense for Policy (USD(P)).
    Answer. If confirmed, I will work closely with the USD(P) in 
providing technical advice on nuclear weapons systems and capabilities 
to help inform their recommendations to the Secretary of Defense on 
issues related to the Nation's current and future nuclear weapons 
requirements, countering the threat of weapons of mass destruction, and 
providing assistance and extending deterrence to allies and partner 
nations. I have worked closely with the USD(P) in the past, including 
Under Secretary Jim Miller, and have enormous respect for the expertise 
and professionalism of its leadership and personnel.
    Question. The Secretaries of the Navy and the Air Force.
    Answer. If confirmed, I will work closely with the Navy and Air 
Force. Both are major ``customers'' of NNSA. In addition to formal 
interaction though the Nuclear Weapons Council (NWC) and the NWC's 
Standing and Safety Committee, I will emphasize the importance of 
maintaining open lines of communications between NNSA headquarters, the 
national security laboratories, and the plants, on the one hand, and 
the military services, on the other, to ensure the latter's 
requirements are fully understood and properly met in NNSA's plans, 
programs, and operations.
    Question. The Commanders of U.S. Strategic Command and U.S. 
Northern Command.
    Answer. If confirmed, I will work closely with the Commander of 
U.S. Strategic Command (STRATCOM) and U.S. Northern Command (NORTHCOM) 
by building upon past associations and understanding of their mission, 
and promoting collaboration in dealing with current and future 
requirements.
    During the course of my military career, I worked extensively with 
STRATCOM on several different levels, including as commander of its 
Task 214 and as commander of a major service component. I also 
previously worked with NORTHCOM in developing plans for nuclear/
radiological incident response and consequence management, and 
participating in NORTHCOM-led exercises.
    In addition to formal interaction with the Vice Chairman, Joint 
Chiefs of Staff, and STRATCOM though the NWC, I will emphasize the 
importance of maintaining open lines of communications between the 
NNSA, the national security laboratories and the plants, on the one 
hand, and STRATCOM and NORTHCOM, on the other, to ensure the latter's 
requirements are fully understood and properly met in NNSA's plans, 
programs, and operations.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict (ASD(SOLIC)).
    Answer. If confirmed, I expect to work closely with the ASD(SOLIC) 
on matters related to joint DOD-NNSA capabilities to counter the threat 
of nuclear terrorism. Though I have not yet been briefed on the 
details, I understand that the partnership between the special 
operations community and NNSA is unique in government, and vital to 
protecting our national security interests.
    Question. The Assistant to the Secretary of Defense for Nuclear and 
Chemical and Biological Defense Programs (ASD(NCB)).
    Answer. If confirmed, I will work closely with the ASD(NCB) on key 
issues on the agenda of the NWC and its Standing and Safety Committee. 
I have worked closely with ASD(NCB) in several past assignments, 
including Assistant Secretary Andy Weber, and have enormous respect for 
the expertise and professionalism of its leadership and personnel.
    Question. The Director of the Defense Threat Reduction Agency 
(DTRA).
    Answer. As the implementation arm of the DOD's Cooperative Threat 
Reduction Program and as a major research and development partner, it 
will be essential to maintain a close and productive working 
relationship with the Director of the Defense Threat Reduction Agency. 
I understand that cooperation between NNSA and DTRA is facilitated 
through regular program coordination meetings under which a variety of 
working groups collaborate on specific program development, ranging 
from joint research to developing the most effective ways to implement 
border security programs. I have worked closely with DTRA in the past, 
including its Director Ken Myers and have enormous respect for the 
expertise and professionalism of DTRA's leadership and personnel.
    Question. The Director of National Intelligence and other senior 
leaders of the Intelligence Community.
    Answer. I understand that NNSA has a close and longstanding 
relationship with the Intelligence Community based on NNSA's unique 
understanding of nuclear weapon capabilities and the contributions of 
the national security laboratories to broader national security 
missions. If confirmed, I will continue and strengthen this 
relationship.
    Question. Officials in the Department of Homeland Security with 
responsibilities for nuclear homeland security matters.
    Answer. I understand that NNSA has a close and longstanding 
relationship with the Department of Homeland Security based on NNSA's 
unique understanding of nuclear weapon capabilities and the 
contributions of the national security laboratories to broader national 
security missions. If confirmed, I will work closely with DHS officials 
on nuclear counterterrorism issues, radiological/nuclear incident 
consequence management, and support to National Operations Center 
(NOC).
    Question. Officials in the Department of State with responsibility 
for nuclear nonproliferation matters.
    Answer. If confirmed, I will coordinate closely with the Department 
of State on issues related to arms control, nuclear nonproliferation, 
export controls, securing nuclear and radiological materials worldwide, 
and border security. I have worked closely with the State Department in 
the past, including serving as Special Assistant to the Deputy 
Secretary of State, two assignments to overseas diplomatic posts (U.S. 
Mission to NATO and U.S. Embassy Moscow), as a consultant to Acting 
Under Secretary of State Rose Gottemoeller, and currently as a member 
of the Secretary of State's International Security Advisory Board. I 
have enormous personal respect for the expertise and professionalism of 
its leadership and personnel.
                     major challenges and problems
    Question. In your view, what are the major challenges confronting 
the Under Secretary for Nuclear Security and Administrator of the NNSA?
    Answer. The NNSA has a unique responsibility for pursuing two 
different, but complementary principles that have traditionally guided 
American nuclear weapons policy. The first is that the United States 
must continue to lead international efforts to limit and reduce nuclear 
arsenals, prevent nuclear proliferation and terrorism, and secure 
nuclear materials across the globe. The second is that appropriately-
sized nuclear forces still play an essential role in protecting U.S. 
and allied security interests, even as the United States seeks to 
reduce the overall number and role of nuclear weapons in our national 
security policy. As President Obama and leaders in Congress have 
repeatedly emphasized, as long as nuclear weapons exist, the United 
States will maintain a safe, secure, and effective nuclear arsenal.
    In discharging this responsibility, NNSA performs enormously 
important work each and every day. Its successes go largely unheralded. 
It has made tremendous progress in helping to achieve the President's 
goal of securing vulnerable nuclear materials around the globe. It is 
delivering the life-extended W76-1 warhead to the Navy on schedule. It 
is currently transferring work at the Kansas City plant into a new, 
modern facility that will greatly improve efficiency--and that was 
constructed on time and on budget.
    That said, escalating costs in several major programs and capital 
construction projects are cause for serious concern, especially as 
pressures on government spending continue to mount. Additionally, a 
widely-publicized security lapse at a key NNSA facility last year 
raises questions about the overall health of the security and safety 
culture within the broader enterprise.
    Restoring trust in NNSA's ability to deliver on its commitments 
requires strong leadership focus on managing costs to deliver 
capability for less expense. It also requires rebuilding partnerships 
between the headquarters and the field; between Federal employees and 
the contractor workforce at the laboratories and plants; and between 
NNSA and Congress and the Department of Defense.
    It is critical that all of these issues are addressed while placing 
a strong priority on improving security and safety across the NNSA 
enterprise.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. To accomplish those things, NNSA must improve its 
accountability; performance--including project management, planning and 
cost estimating processes; improve the way it does business; and invest 
in the future of its enterprise. The NNSA must meet a host of nuclear 
security requirements while ensuring the best value for taxpayer 
dollars and balancing priorities among many unique nuclear security 
activities.
    I expect to draw upon my recent experience as the first commander 
of Air Force Global Strike Command. In the wake of security incidents 
and cost overruns, NNSA currently faces a situation similar in many 
respects to what the Air Force encountered in 2007 when several widely-
publicized lapses raised concerns about its stewardship of the nuclear 
enterprise. When we subsequently established Global Strike Command, our 
first task was to establish clear lines of authority, responsibility, 
and accountability. We also placed strong emphasis on strengthening the 
safety and security culture, while at the same time streamlining 
processes and eliminating needlessly burdensome, non-value-added 
activities that stood in the way of our people and their incentive to 
innovate. Finally, we continually emphasized that everyone in the 
organization, regardless of job, or rank, or seniority was a valued 
member of the team and that her or his work was absolutely essential to 
success. If confirmed, this is the leadership approach I intend to 
bring to NNSA.
    The Military Services often say that people are their most 
important asset. It's true; and, it applies to NNSA as well. Highly 
trained, experienced and motivated scientists, engineers, technicians, 
and security personnel are essential to performing the many highly 
complex and technically challenging tasks associated with the nuclear 
security enterprise. If confirmed, I will be guided by the principle of 
``Mission first, people always.'' To this end, I will be an unrelenting 
champion for the professional development and personal welfare of 
everyone associated with NNSA--including recruiting and mentoring the 
next generation of leaders and experts.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will place immediate emphasis in working 
with the Secretary, as well as the directors of the national security 
laboratories, plants and field offices, to: (1) clarify lines of 
authority, responsibility, and accountability within the entire NNSA 
enterprise, and (2) identify steps to streamline business processes and 
eliminate needlessly burdensome, non-value-added activities that stand 
in the way of NNSA's people and their incentive to innovate. I will 
likewise focus with intensity on adopting measures to dramatically 
improve NNSA's capabilities for cost estimation, program management, 
and oversight of capital construction projects. I will ensure full 
attention is being devoted at all levels to ensuring the safety and 
security of NNSA's people and facilities, particularly in light of the 
security breach at Y-12 National Security Complex last summer. Finally, 
I will personally reach out to as many NNSA employees as possible and 
in as short a time as possible to communicate the continued importance 
of NNSA's work, to hear their views and concerns, and to thank them for 
their contribution to our Nation's security.
    Question. Do you believe it is important to ensure a unique 
organizational identity for the NNSA within the Department of Energy 
(DOE)? What steps would you take to ensure such an identity if 
confirmed?
    Answer. I do. Through the NNSA Act, Congress established NNSA as a 
semi-autonomous part of DOE. In my past assignments, I have always been 
an ardent champion of the organizations and people entrusted to my 
leadership and care. I am committed to doing the same as Under 
Secretary for National Security and NNSA Administrator. At the same 
time, I also believe that common, enterprise-wide standards and best 
practices that reduce costs and improve efficiency, safety and security 
should be adopted and implemented when they make sense. I will work 
closely with the Secretary of Energy and consult with Members of 
Congress and their staffs in considering such opportunities while at 
the same time and ensuring that NNSA fulfills its unique role and 
responsibilities.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
to address the issues that confront the Under Secretary for Nuclear 
Security and Administrator of the NNSA?
    Answer. If confirmed, my highest priority will be to ensure that 
NNSA delivers on its commitments to national security objectives. This 
includes ensuring the Nation's nuclear weapon stockpile is safe, 
secure, and effective now and in the future. It also includes working 
to ensure the NNSA is conducting leading-edge scientific research, 
preventing nuclear materials from falling into the hands of terrorists 
and would-be proliferators, supporting the Navy's nuclear reactor 
program, modernizing NNSA's capabilities and organization in today's 
fiscally constrained environment, and in protecting the safety and 
security of its sites, its employees, and the public.
                           overall management
    Question. What is your view on the relationship and the relative 
duties and responsibilities of the Secretary of Energy as found in the 
Atomic Energy Act and the Administrator of the NNSA?
    Answer. By statute, the Secretary of Energy is responsible for 
establishing policy for the NNSA and may also direct the DOE officials 
who are not within the NNSA to review the programs and activities of 
NNSA and to make recommendations to the Secretary regarding 
administration of those programs and activities, including consistency 
with similar programs and activities of DOE. The provisions governing 
the duties and responsibilities of the NNSA Administrator provide broad 
authority to manage the administration, under the authority, direction, 
and control of the Secretary. I fully share Secretary Moniz's strong 
commitment to ensure that NNSA fulfills mission tasks enumerated in 
section 3211 of the NNSA Act, while ensuring that all operations and 
activities are consistent with the principles of protecting the 
environment and safeguarding the safety and health of the public and 
workforce of NNSA.
    Question. Do you believe that there are any organizational 
structure issues in the NNSA that should be addressed to improve 
management and operations of the NNSA, or that you would address if 
confirmed?
    Answer. NNSA faces several challenges, from concerns with project 
management and cost overruns to serious security lapses, which will 
need to be addressed. If confirmed, I plan to draw upon my recent 
experience as the first commander of Air Force Global Strike Command to 
establish clear lines of authority, responsibility and accountability, 
while also placing a strong emphasis on strengthening the safety and 
security culture. Additionally, I believe the partnerships between the 
headquarters and the field, and between Federal employees and the 
laboratories and plants must be strengthened.
    Question. The NNSA and DOE have been plagued by cost overruns and 
project cancellations related to the construction of nuclear 
facilities, nuclear weapons modernization programs, and nuclear 
stockpile stewardship facilities.
    How serious are these cost overruns in your view?
    Answer. It is critical that NNSA's weapons modernization and 
infrastructure modernization efforts, including capital asset projects, 
deliver on cost and schedule; otherwise, it puts at risk its 
fundamental ability to execute its mission.
    I understand that NNSA has recently taken steps designed to improve 
acquisition and project management for capital asset projects, and that 
projects less than $750 million have been removed from the Government 
Accountability Office's High Risk List. If confirmed, I will focus on 
how the NNSA can apply the same acquisition and project management 
rigor to projects over $750 million.
    With regard to weapons modernization, the United States now has the 
oldest stockpile in its history and the smallest stockpile since the 
Eisenhower administration. As the NNSA enters a period increased work 
activity not seen since the Cold War, it must incorporate sound 
engineering judgments in even its earliest cost estimates. If 
confirmed, I will remain committed to these project management 
principles across all of NNSA's acquisitions and projects.
    Question. What steps will you take, if confirmed, to ensure they 
are not repeated in the future?
    Answer. If confirmed, and in following the Secretary's vision, I 
will support strengthening and improving contract and project 
management across NNSA by:

        <bullet> Strengthening rigorous and well-justified alternative 
        assessments and evaluations;
        <bullet> Strengthening cost estimating;
        <bullet> Providing independent dedicated acquisition, project 
        management, and oversight that aligns contract incentives with 
        taxpayer interests;
        <bullet> Providing clear lines of authority and accountability 
        for Federal and contractor personnel;
        <bullet> Managing assigned projects within the original scope 
        and cost baselines, ensuring completed projects meet mission 
        requirements; and
        <bullet> Improving cost and schedule performance.

    Question. Do you believe that the expertise of DOE personnel 
serving outside the NNSA can be helpful to you if confirmed? If so, how 
do you expect to utilize this expertise if you are confirmed?
    Answer. Yes. DOE possess a wealth of talent and innovative ideas 
across its entire enterprise. Its laboratory, plant, and Federal 
employees work on some of the most technically complex projects in the 
Nation, delivering high quality projects safely. The NNSA should draw 
on DOE best practices, especially in the areas of planning, cost 
control, and project delivery.
    Question. Are you aware of any limitations on your authority, if 
confirmed, to draw on that expertise?
    Answer. I am not aware of any limitations on my authority, if 
confirmed, to draw upon that expertise.
    Question. What is your view of the extent to which the NNSA is 
bound by the existing rules, regulations, and directives of DOE and 
what flexibility, if any, do you believe you would have in implementing 
such rules, regulations, and directives?
    Answer. I understand the DOE has an order that governs program and 
project management for the acquisition of capital assets. While I have 
not been briefed, pending confirmation, on its detailed application to 
NNSA activities, I certainly agree with the precept that rigorous 
project management principles should be applied and that the Federal 
staff must be given the tools they need and then be held accountable 
and responsible for delivering the work.
    Question. NNSA, in large measure, was created in response to 
security lapses at the Los Alamos National Laboratory. However, 
security lapses, particularly in 2012 at the Y-12 nuclear plant, have 
continued to occur. Section 3212(b)(10) of the National Defense 
Authorization Act for Fiscal Year 2000 provides that ``the 
Administrator has authority over, and is responsible for all programs 
and activities of the administration, including administration of 
contracts, including the management and operations of the nuclear 
weapons production facilities and the national security laboratories.''
    If confirmed, what would be your plan to make sure that security 
lapses do not continue at the NNSA facilities?
    Answer. The 2012 security incident at Y-12 was totally 
unacceptable. The accounts of the DOE Inspector General, the ``three 
wise men,'' and Major General Sandy Finan describe a security culture 
in which responsibility for the protective force and the physical 
security system was divided, security equipment was not repaired in a 
timely fashion, compensatory measures were inadequate and improperly 
executed, multiple nuisance alarms led to an attitude of complacency, 
and security was neither rigorously nor routinely exercised and 
evaluated. Security and safety are, in my opinion, paramount. If 
confirmed, strengthening security at NNSA facilities will be the top 
priority. I intend to draw on my experience as the first Commander of 
Air Force Global Strike Command to address the security culture that 
exists at NNSA. Working with the Secretary of Energy, I will ensure 
that authority is aligned with responsibility and effective 
communication exists between the NNSA headquarters and the field, and 
that there is accountability for performance at all levels. My 
understanding is NNSA is in the process of implementing improved 
oversight mechanisms, which include clarifying roles, authorities, and 
functions for the organization.
    Question. If confirmed, what policies would you institute to 
improve the manner in which managers of NNSA facilities deal with 
security matters?
    Answer. Security of the nuclear enterprise is the responsibility of 
every employee of NNSA, regardless of job or rank, or in the field or 
headquarters. If confirmed, I will insist on strict adherence to DOE 
security standards and clarify lines of authority, responsibility, and 
accountability for meeting and maintaining those standards. The status 
of security systems (including all outages and estimated time of 
repair) will be monitored daily at NNSA headquarters; security 
deviations and corresponding compensatory measures will be reviewed by 
Federal officials both at the field and headquarters levels; security 
procedures and responses to alarms will be rigorously trained, 
exercised, and evaluated.
               defense nuclear nonproliferation programs
    Question. What do you see are the highest priorities of the nuclear 
nonproliferation programs at the NNSA?
    Answer. One of the NNSA's most critical roles and responsibilities 
is developing policies and programs with other departments on behalf of 
the U.S. Government to prevent the proliferation of nuclear weapons, 
materials, technology, and expertise. This includes international and 
domestic activities such as removing and eliminating excess weapons 
usable material; consolidating and securing vulnerable nuclear 
material; strengthening physical protection and material control; 
implementing a second line of defense to interdict nuclear trafficking; 
and controlling the export and proliferation of weapons of mass 
destruction (WMD) expertise. The NNSA is nearing completion of a 
remarkable 4-year effort to implement the vision and call to action by 
President Obama and the Nuclear Security Summits. I understand NNSA is 
intently focused on a strategy and game plan for nuclear 
nonproliferation program for the coming years. If confirmed, I will 
fully support and champion these critically important mission.
    Question. The United States recently renewed the bilateral 
agreement with Russia for joint nuclear nonproliferation activities but 
a growing number of programs are focused on states other than the 
former Soviet Union.
    Do you believe that there are additional opportunities for 
cooperation with states outside of the former Soviet Union, 
particularly the Middle East and North Africa? If confirmed what would 
be your priorities in these areas?
    Answer. Yes. I understand that NNSA is actively engaged in more 
than 120 countries, including in the Middle East and North Africa, with 
projects to secure and remove nuclear and radiological materials; 
convert civilian research reactors and medical isotope production 
facilities from highly enriched uranium (HEU) to low enriched uranium; 
safeguard and secure nuclear materials from theft; control the spread 
of WMD-related material and expertise; cooperate on Nuclear Security 
Centers of Excellence; and detect and interdict nuclear and 
radiological trafficking. If confirmed, I would continue to prioritize 
nonproliferation efforts and ensure that NNSA programs achieve 
sustainable threat reduction.
    Question. What do you believe is the greatest challenge in the 
nuclear nonproliferation programs with Russia?
    Answer. The greatest challenge with Russia is to ensure that Moscow 
fully assumes responsibility for all aspects of its own nuclear 
security by the end of 2017 (a deadline for the CTR Russia programs 
established in the National Defense Authorization Act for Fiscal Year 
2011). While Russia has made, and continues to make, significant 
improvements in its support for nuclear security, there is concern 
about the long-term ability and willingness of the Russian government 
to adequately fund nuclear security needs at the site and national 
levels. The level of risk-reduction achieved with U.S. support is 
significant and has been maintained through continued U.S. engagement 
and sustainability assistance. Continued engagement at the highest 
levels of government will be extremely important. If confirmed, I will 
ensure that NNSA continues to work with its Russian counterparts to 
prepare as fully as possible for the phase-out of U.S. financial 
assistance.
    Question. What do you believe are the greatest challenge in nuclear 
nonproliferation programs with countries other than Russia?
    Answer. I believe there are a number of challenges outside of 
Russia, including significant stockpiles of HEU, global inventories of 
plutonium, and high-activity radiological sources that remain 
vulnerable to theft around the world. The existence of this material, 
in combination with the increasing sophistication of trafficking 
networks and the continued interest by states and non-state actors in 
acquiring nuclear materials, poses a serious threat to the security of 
the United States and its allies and partners.
    Another significant challenge lies in promoting the benefits of 
peaceful nuclear energy while reducing the risks of nuclear 
proliferation. To this end, NNSA works in over 70 countries around the 
globe to strengthen nuclear safeguards and security and works closely 
with DOE's Office of Nuclear Energy to ensure that new technology and 
security advance together.
    Finally, a major challenge NNSA faces in many of its international 
programs is the lack of infrastructure, resources, and technical 
capabilities in partner countries that often inhibit the level of 
cooperation or amount of assistance a country can or is willing to 
absorb.
    Question. In your view what are the three greatest unmet nuclear 
nonproliferation problems? Would you propose to address these needs if 
confirmed? What resources or cooperation would you need to meet such 
needs?
    Answer. In my view, the three greatest unmet nuclear 
nonproliferation problems are: (1) non-compliance with international 
agreements and U.N. Security Council Resolutions, particularly by Iran, 
North Korea, and Syria; (2) ensuring terrorists never acquire a nuclear 
weapon or weapons-usable material; and (3) minimizing the proliferation 
risks associated with the expansion of nuclear energy, including 
limiting the spread of sensitive enrichment and reprocessing technology 
and ensuring that newcomer states have the resources and training to 
develop safe and secure nuclear programs.
    If confirmed, I will work hard to ensure that NNSA maintains the 
technology, policy, and implementation competencies needed to inform 
and support a whole-of-government nonproliferation strategy as well as 
the rapid-response ability needed to mitigate threats at a moment's 
notice. The national security laboratories play a critical role in this 
regard.
                               megaports
    Question. The megaports program is coordinated with other work that 
the Department of Homeland Security (DHS) is carrying out in foreign 
ports.
    In your view are there opportunities to improve cooperation with 
DHS?
    Answer. I understand that NNSA's Office of the Second Line of 
Defense (SLD) and DHS' Container Security Initiative (CSI) closely 
coordinate on their complementary yet distinct efforts at foreign 
seaports. To formalize this cooperation, SLD and CSI developed and 
implemented a Standard Operating Procedure (SOP) document in December 
2012. This SOP outlines areas of cooperation and specific actions that 
each program can undertake to ensure continued close cooperation and 
coordination. If confirmed, I will monitor this SOP to ensure it 
provides the necessary framework to ensure close cooperation between 
the SLD and CSI programs.
    Question. One of the continuing challenges to the megaports 
program, as well as other programs designed to detect nuclear and 
radiological materials, is that the materials that could pose the 
greatest risk, plutonium and highly enriched uranium, are the most 
difficult to detect. NNSA has the responsibility for basic detection 
research and development programs. While other agencies, such as DHS, 
have responsibility for near-term development efforts, and the 
Department of Defense has responsibilities as well.
    Are the various detection efforts fully coordinated, or do you 
believe that additional efforts at coordination are needed?
    Answer. If confirmed, I will work to ensure that NNSA's detection 
efforts are well coordinated among NNSA, DHS, and DOD. I understand 
that NNSA maximizes the equipment it currently deploys to focus on this 
type of material.
               nonproliferation research and development
    Question. In addition to the detection technologies mentioned 
above, NNSA has responsibility for a broad range of research and 
development efforts.
    If confirmed what would be your nonproliferation research and 
development priorities?
    Answer. If confirmed, I will ensure that NNSA will continue to 
prioritize research and development that supports implementation of the 
President's nuclear security priorities and the 2010 Nuclear Posture 
Review. This research and development includes developing technical 
capabilities to detect foreign nuclear weapons development, detect 
nuclear detonations, detect the movement or diversion of special 
nuclear materials, monitor compliance with nuclear arms control and 
nonproliferation agreements, discourage the unnecessary spread of 
enrichment technology, and inform policymakers of current and future 
technical capabilities available for meeting potential nuclear 
nonproliferation and arms control treaty objectives.
    Question. Do you believe that there are research and development 
areas that need more attention or funding?
    Answer. NNSA seeks to sustain commitment levels for research and 
development of both unilateral and multilateral technical capabilities 
to detect, identify, and characterize foreign nuclear weapons programs, 
the illicit diversion of special nuclear materials, and foreign nuclear 
detonations. For this last focus area, NNSA must sustain funding that 
permits production of nuclear detection satellite payloads at a rate in 
accordance with the delivery schedule negotiated with the Air Force.
                     fissile materials disposition
    Question. The United States and Russia have each committed to the 
disposition of 34 tons of weapons grade plutonium so that it will not 
be used for weapons purposes. This is a very expensive program and has 
had many difficulties associated with it.
    What is your understanding of the current status of the U.S. and 
Russian efforts to agree upon a mutual date to complete disposition of 
the respective 34 tons of weapons grade plutonium?
    Answer. The United States is fully committed to eliminating surplus 
nuclear material and to the U.S.-Russian Plutonium Management and 
Disposition Agreement (PMDA). While I understand that the PMDA provides 
a target start date and minimum annual rate of disposition, it is 
silent on a completion date.
    Question. What plans are there to dispose of additional amounts of 
weapons grade plutonium?
    Answer. I am aware of the U.S. 2007 declaration of additional 
surplus plutonium beyond the 34 MT covered by the PMDA and that the 
PMDA does include provisions whereby the United States and Russia could 
dispose of additional material. However, I am not personally aware of 
any agreement between the United States and Russia to dispose of 
additional material above the 34MT.
                       weapons programs personnel
    Question. If confirmed, what specific steps would you take to 
retain critical nuclear weapons expertise in both the NNSA and the 
contractor workforce?
    Answer. The key to recruiting and retaining top-flight personnel, 
in my mind, is to provide them challenging and intrinsically 
interesting work, as well as world-class laboratory equipment and 
diagnostic tools. Additionally, leaders at all levels--both in 
Washington and in the field--must regularly communicate the importance 
of NNSA's mission and that they value the contribution NNSA people make 
to the organization and to the Nation. NNSA also needs to support a 
strong connection with the academic community to ensure future 
generations are trained in technical areas relevant to NNSA's mission.
    Question. Do you support retaining the capability to remanufacture 
every component expected to be found in the stockpile in the near term?
    Answer. Nuclear deterrence and responsiveness depend on the 
immediate capabilities of NNSA's people and infrastructure. Many 
components can be re-used to support stockpile requirements in the 
near-term, and in those instances I will advocate for that option. 
However, the current stockpile is the oldest in the Nation's history 
and may require a cost-effective option to re-manufacture certain 
components to meet specific needs. As such, NNSA must preserve the 
fundamental capability to re-manufacture components, when necessary to 
support a lean, modern, and reliable nuclear weapons stockpile.
    Question. What is your understanding of the most pressing 
remanufacturing needs?
    Answer. Today, NNSA faces several critical needs (in terms of its 
total remanufacturing capability). However, it is my understanding that 
the most pressing capability at this point is the means to re-
manufacture plutonium pits. Additionally, the 2010 Nuclear Posture 
Review confirmed the need for a modern physical infrastructure that can 
support the base workload and provide a modest capacity to surge 
production if directed to do so by the President. NNSA has implemented 
management strategies, to include improved energy sustainability that 
ensures existing facilities and infrastructure are sustainable, safe, 
efficient, and reliable. These facilities include the recently 
constructed Kansas City Responsive Infrastructure Manufacturing and 
Sourcing; the High-Explosive (HE) Pressing Facility (which will become 
the DOE Center of Excellence for HE pressing when complete in 2016); 
the planned Uranium Capabilities Replacement Project; and implemented 
Tritium Responsive Infrastructure Modifications.
                     stockpile stewardship program
    Question. The Stockpile Stewardship program has successfully 
supported the annual nuclear weapons certification effort for the last 
20 years.
    What impact do you believe not achieving sustained ignition or burn 
at the National Ignition Facility (NIF) will have on the stockpile 
stewardship program?
    Answer. Scientific experiments that probe the physical properties 
and dynamics of nuclear weapons are vital to ensuring confidence in the 
safety, security, and reliability of the stockpile. A broad range of 
experimental facilities develop the data that underpin the assessments 
of the current health of the stockpile and approaches to life extension 
programs. These include NNSA's Inertial Confinement Fusion facilities--
the NIF at Lawrence Livermore National Laboratory and Z machine at 
Sandia. The ability to correctly model ignition processes is an 
important part of that evaluation. While ignition has not yet been 
achieved at NIF, experiments conducted at the facility are still 
vitally important to developing the scientific understanding of the 
nuclear weapons characteristics that is essential to successfully 
implementing the stockpile stewardship program.
    Question. If confirmed, what are your long-term plans for the NIF?
    Answer. NIF will remain an essential experimental capability for 
understanding of the physical properties and characteristics of nuclear 
weapons that cannot otherwise be accessed short of a resumption of 
nuclear testing.
    Question. Other than the NIF what capabilities, if any, would be 
needed to ensure that the stockpile is safe, secure, and reliable 
without nuclear weapons testing?
    Answer. I am aware that the directors of the national laboratories 
rely on the data provided by a wide array of capabilities located 
throughout the enterprise to assess different aspects nuclear weapons 
and their safety, security and effectiveness. While on active duty, I 
had an opportunity to visit several of these facilities, including NIF; 
Los Alamos National Laboratory's DARHT; the Nevada National Nuclear 
Security Site's U1a complex, JASPER and Device Assembly Facility; and 
Sandia National Laboratory's Z facility. These and other NNSA 
capabilities are essential to ensuring that the stockpile is safe, 
secure, and reliable without nuclear weapons testing.
    Question. In your view is the Stockpile Stewardship program fully 
coordinated with the Department of Defense?
    Answer. It is my understanding the NNSA is meeting its customer's 
requirements in partnership with DOD and through the Nuclear Weapons 
Council, while managing scope requirements and fiscal constraints. NNSA 
has continued to issue the biannual Stockpile Stewardship and 
Management Plan, the most recent version having been signed out by 
Secretary Moniz in June 2013.
    Question. The Nuclear Weapons Council has laid out a schedule over 
the next 20 years that involves numerous demands on the NNSA, these are 
the B-61 life extension program (LEP), the interoperable warhead, the 
W-88/87 joint fuse program, the warhead for the long-range stand-off 
weapon, in addition to the maintenance of the existing stockpile 
systems (W-88, W-87, W-76, W78, B-61, B-83, and W-80).
    What issues do you see in this ambitious schedule that concern you?
    Answer. Our Nation is currently facing an acute dilemma brought on 
by the need for continued investment in an aging nuclear weapons 
stockpile and infrastructure in a fiscally-constrained environment. The 
specific budget measures and higher-than-anticipated program costs have 
led the NWC to agree to defer needed modernization efforts. If 
confirmed, I will ensure that the NNSA commits to a series of 
programmatic decisions for future improvements by baselining the 
alignment of nuclear delivery platforms with warhead life extension 
programs and supporting infrastructure; supporting implementation of a 
long-term vision for the stockpile; and embarking upon a series of key 
modernization initiatives. The sheer number of life extension programs 
and modernization efforts planned over the next 20 years will create a 
significant workload. Adhering to carefully laid out schedule will be a 
critical factor in achieving success. Programs must stay on track, and 
that in turn requires constancy of purpose, as well as consistent and 
predictable funding levels.
    Question. Are you concerned this schedule is achievable if 
sequestration continues?
    Answer. Yes. Absolutely. Any organization executing technically 
complex, unique, and long-term acquisitions needs sufficient and stable 
funding so as to plan and execute the agreed upon program of work. 
Sequestration is just one challenge.
    I'm well aware from my military experience that Continuing 
Resolutions also exact a toll by increasing uncertainty while reducing 
flexibility for program adjustments as activities are completed and new 
ones need be initiated. This is particularly harmful to life extension 
programs having multiple phases of work. I am sure it will be a great 
challenge, if not downright impossible, for the NNSA to meet current 
commitments to the Department of Defense if sequestration continues. 
Yearly sequestration cuts cause additional, unnecessary and costly work 
to re-plan the complex integration between design laboratories and 
production plants supporting each of the LEPs and other sustainment 
activities as well as to re-negotiate delivery schedules with DOD. I am 
also greatly concerned that additional delays may be unavoidable in the 
event of fiscal year 2014 sequestration. Adequate budgets and budget 
stability and sustainment are essential to meeting program delivery 
objectives.
    Question. The NNSA is in the early stages of an effort to develop 
an interoperable warhead for the W-88 and W-78 systems.
    If the cost of the interoperable warhead become prohibitive would 
you support life extensions of the existing systems?
    Answer. This should be a decision made by the Nuclear Weapons 
Council, reflecting military requirements, technical feasibility, and 
cost and schedule risk. I fully support the need for life extension 
programs to ensure the safety, security, and reliability of the 
Nation's nuclear weapon stockpile. I understand that the W78/88-1 LEP 
is the first interoperable warhead concept supporting the 3+2 nuclear 
strategy of three ballistic missile warheads and two air-launched 
warheads to reduce the numbers and types of nuclear weapons, consistent 
with the Nuclear Posture Review. I understand work is underway that 
will culminate in a Weapon Development and Cost Report which would 
inform a decision to continue the program as scoped or pursue alternate 
courses of action.
    Question. Do you support the current scope of the B-61 mod 12 life 
extension program (LEP)?
    Answer. As a former commander who had direct responsibility for the 
long-range bombers capable of delivering the B-61, I fully support the 
need for the B-61-12 life extension program. I understand that the 
Nuclear Weapons Council evaluated options ranging from a full scope LEP 
to replacing only aging components, and ultimately chose the lowest 
cost option to meet military requirements. In addition to providing for 
both strategic deterrence and extending deterrence to our allies, the 
currently envisioned LEP will also result in fewer total weapons and 
less material in the nuclear stockpile.
    Question. Are you concerned about the overall cost of the B-61 mod 
12 life extension program and if so what particular issues are of 
concern?
    Answer. While I understand current cost estimates for the B-61-12 
LEP are significant, modernizing the nuclear stockpile is critical to 
achieving the President Obama's direction to maintain a safe, secure, 
and effective deterrent while reducing the overall number of nuclear 
weapons. Furthermore, I understand that the B-61-12 was chosen as the 
lowest cost option to meet threshold military requirements; Delaying 
this LEP would almost certainly drive up lifecycle costs and could 
necessitate additional LEP activities in order to maintain credible 
strategic and extended deterrence capabilities.
    Question. The Senate Appropriations Committee has proposed a 
reduction of $168 million to the President's fiscal year 2014 request 
for the B-61 life extension program. What impact would this reduction 
have on the B-61 LEP in terms of cost and schedule? How might it affect 
other planned LEPs?
    Answer. While I am aware of proposed cuts to the B-61-12 LEP from 
the public record, I am not yet privy to the details of the potential 
impacts. Based on my experience in previous assignments, I am sure, if 
sustained, they would most certainly affect schedule and cost, as well 
as other LEPs employing the same facilities and workforce.
                     facilities and infrastructure
    Question. In fiscal year 2013, the NNSA ``deferred for at least 5 
years'' the construction of the Chemistry, Metallurgy Research 
Replacement Nuclear Facility (CMRR-NF).
    Do you support this deferral?
    Answer. I understand that the decision to defer the CMRR-NF 
construction for at least 5 years was necessary at the time due to 
reductions in the NNSA's budget request in the fiscal year 2012 cycle, 
competing priorities, and a further reduction of funding under the 
Budget Control Act. If confirmed, I will be committed to ensuring the 
NNSA can deliver the plutonium capabilities--including the underlying 
analytical capabilities and infrastructure--required to ensure the 
safety, security and effectiveness of the nuclear weapon stockpile.
    Question. What impacts is the CMRR-NF deferral likely to have on 
the plutonium sustainment mission at Los Alamos when the existing CMR 
building is scheduled for removal in 2019?
    Answer. Though I am not yet privy to all the details, I understand 
that the NNSA has developed a plutonium strategy, that if executed, 
would ensure continuity in plutonium operations at the Los Alamos 
National Laboratory.
    Question. Due to this uncertainty with the deferral, are you 
concerned about retaining the core competency of plutonium scientists 
and other specialized personnel at Los Alamos related to it plutonium 
mission and what will you do to improve it?
    Answer. Maintaining the core competency of the workforce at each 
site must be a priority for the NNSA, particularly as many scientists, 
engineers and technicians are approaching retirement. I firmly believe 
that the key to recruiting and retaining top-flight personnel is to 
provide them challenging and intrinsically interesting work, as well as 
world-class laboratory equipment, diagnostic tools, and facilities in 
which to work. Additionally, leaders at all levels--both in Washington 
and in the field--must regularly communicate the importance of the 
mission and that they value the contribution NNSA people make to the 
organization and to the Nation. Implementation of a plutonium strategy 
will allow for continuity in plutonium operations at Los Alamos and 
will assist in the retention of critical skills related to plutonium 
dependant missions. If confirmed, I will closely consult with Members 
of Congress and their staffs on the requirements for maintaining the 
Nation's plutonium capabilities and expertise.
    Question. If alternative construction strategies such as a modular 
approach to CMRR-NF prove feasible will you strongly advocate for them?
    Answer. I understand that the NNSA and Department of Defense are 
developing a business case analysis of the potential alternatives to 
constructing CMRR-NF, including the so-called modular approach. If 
confirmed, any approach I advocate will be based on this joint analysis 
and consultations with the Secretary of Energy.
    Question. DOE and NNSA often build one of a kind or first of a kind 
buildings, the most recent being the Uranium Processing Facility. The 
NNSA recently found the project underestimated the floor space needed 
and had to raise its roof by some 13 feet, increasing the cost by at 
least $500 million. The General Accountability Office estimates to 
complete the full scope of the project as envisioned would be $10 
billion vice the upper bound of $6.5 billion.
    If confirmed, what steps would you take to ensure that NNSA 
construction projects are managed to be completed within budget and on 
time?
    Answer. I have always subscribed to the principle that hiring the 
right people and giving them the tools they need to do their jobs is 
critical to achieving mission success.
    If confirmed, I would be committed to assigning certified Federal 
Project Directors (FPDs) to all projects at the point where the 
important planning and design work leading to baseline development is 
accomplished. I understand that the NNSA has revised change control 
procedures to achieve visibility on potential scope increases, allowing 
the NNSA to manage the work proactively. As the project progresses to 
the construction phase, NNSA will ensure the FPDs have the appropriate 
training, experience, and certification level to lead the project 
through successful execution. NNSA has also adopted a peer review 
process to provide critical independent assessments of its work 
throughout the project life cycle.
    In addition, if confirmed, I would want the NNSA to take full 
advantage of contracts and contract language to ensure that the best 
interests of all stakeholders are being met through performance 
requirements. NNSA has recently issued a policy that requires nuclear 
facilities achieve 90 percent design completion prior to the 
establishment of the project's baselines. The NNSA will need to clearly 
articulate its expectations to the contractor partners and to use the 
contract to hold them accountable for deficient work.
    Question. What additional costing, project management, and design 
skills do you believe are needed in the NNSA?
    Answer. NNSA must develop its Federal infrastructure and workforce 
to better estimate project costs, to rigorously analyze alternatives, 
and to more effectively manage design and construction contracts. If 
confirmed, I will direct NNSA's Office of Acquisition and Project 
Management to ensure NNSA has a solid and executable plan in place for 
bolstering Federal expertise in this area.
    I understand that NNSA, in the interim, has an agreement with the 
U.S. Army Corps of Engineers that will allow NNSA to draw upon the 
Corp's experience to support NNSA in terms of Subject Matter Expertise. 
NNSA is also using a Enterprise Construction Management Services 
contract to place Subject Matter Experts, with commercial design and 
construction experience, in the field to mentor and train NNSA's 
Federal Project Directors and Integrated Project Teams in the skills 
necessary to effectively manage NNSA's capital assets.
    Question. At what point in the Critical Decision timeline do you 
believe an independent cost estimate should be performed for a 
construction project, and why?
    Answer. I understand NNSA's current position is that an independent 
cost estimate should be completed at Critical Decision 2 which is the 
point at which the project's cost and schedule baseline is determined. 
At this point, the design should be sufficiently mature to more 
realistically estimate the total project cost.
                           operational safety
    Question. If confirmed, what steps will you take to ensure that 
nuclear and other operational safety issues are fully addressed in the 
design of new NNSA buildings?
    Answer. If confirmed, I will be absolutely committed to the safe 
operation of NNSA facilities and to the protection of workers who work 
in them and the people who reside in the surrounding communities. I 
will be actively engaged in ensuring that safety is incorporated into 
the design and construction of NNSA nuclear facilities. Key elements 
would clearly include the selection of qualified nuclear design and 
construction firms to lead these projects, as well as a properly 
staffed and technically-capable Federal project team. Ensuring that 
appropriate safety systems and controls are identified early in the 
design process and are validated throughout construction is also 
critical to reducing rework and controlling costs during design and 
construction.
    Question. If confirmed, what steps will you take to ensure that 
nuclear operational safety issues are identified by the Defense Nuclear 
Safety Board early in any construction design process and promptly 
resolved?
    Answer. I understand that the Defense Nuclear Facilities Safety 
Board (DNFSB) has a statutory responsibility to review the design of 
new DOE defense nuclear facilities before construction to ensure 
adequate protection is afforded to public health and safety. If 
confirmed, I would welcome DNFSB input and advice on the safety aspects 
of the design and construction of NNSA nuclear facilities. As indicated 
previously, I believe that the identification of required safety 
controls early in the design process is an important element to 
ensuring safety and to controlling project costs. I would work closely 
with the DNFSB to identify any significant design concerns early in the 
design process and meet routinely with the Board to ensure that issues 
are resolved in a timely and effective manner.
                        notification of congress
    Question. If confirmed, would you commit to promptly notifying 
Congress of any significant issues in the safety, security, or 
reliability of the nuclear weapons stockpile?
    Answer. If confirmed, I am committed to promptly notifying Congress 
of any significant issues affecting the safety, security, or 
reliability of the nuclear weapons stockpile.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. I agree.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary for 
Nuclear Security?
    Answer. I agree.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. I agree.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. I agree.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Carl Levin
            support for the facility for rare isotope beams
    1. Senator Levin. Mr. Klotz, in March of this year, the National 
Nuclear Security Administration (NNSA) submitted a report to Congress 
on the use of Department of Energy (DOE) Office of Science facilities 
in support of its stockpile stewardship program. One of the facilities 
it found important was the Facility for Rare Isotope Beams being 
constructed at Michigan State University. This facility will produce 
isotopes to help the NNSA better understand the physics of a nuclear 
weapon without testing. It will help the NNSA's nonproliferation 
mission by determining isotopes from an improvised nuclear device. 
Finally, it will help produce a future nuclear physics workforce that 
is so important to your overall mission. Do you agree that this isotope 
facility, once completed, will be important to the stockpile 
stewardship program?
    Mr. Klotz. The Facility for Rare Isotope Beams (FRIB) is a new 
national user facility for nuclear science, funded by the Department of 
Energy Office of Science (DOE-SC) and operated by Michigan State 
University. FRIB will enable scientists to explore the properties of 
rare isotopes in order to, inter alia, better understand the physics of 
nuclei. Modeling atomic nuclei and their interactions can also help 
lead to breakthroughs in security, the environment, high energy 
physics, and nanoscience--all of which are relevant to important 
missions of NNSA. Additionally, FRIB will, as top priority, help 
educate the next generation of scientists. For all these reasons, I 
fully agree that once completed, this isotope facility will be 
important to the stockpile stewardship program, as well as sustaining 
the intellectual capital it needs for the future.
                                 ______
                                 
               Questions Submitted by Senator Mark Udall
                     nuclear modernization funding
    2. Senator Udall. Mr. Klotz, it has been suggested that the 
administration has underfunded the NNSA nuclear modernization program 
relative to the administration's November 2010 plan, provided to 
Congress pursuant to section 1251 of the National Defense Authorization 
Act (NDAA) for Fiscal Year 2010, by some 34 percent. Can you please 
tell the committee the sequence of events to date between requested and 
appropriated modernization funding since the section 1251 plan, and the 
amount of the fiscal year 2014 NNSA request relative to that plan?
    Mr. Klotz. I understand that the fiscal year 2014 Stockpile 
Stewardship Management Plan (SSMP) reflects a $2 billion increase in 
funding over the projections made in fiscal year 2011 SSMP as the New 
Strategic Arms Reduction Treaty (START) treaty was being considered. 
The fiscal year 2014 projections also represent a 27 percent increase 
in NNSA's purchasing power for the Weapons Activities account from 
fiscal year 2010-fiscal year 2018. Therefore, while the fiscal climate 
has changed significantly since the time of New START treaty 
ratification, including the NNSA having to absorb additional funding 
reductions in fiscal year 2013 as a result of sequestration under the 
Budget Control Act, significant resources are being put towards nuclear 
modernization activities across the stockpile; the science, technology 
and engineering base; and the infrastructure. If confirmed, I will 
strongly support the funding required to carry out NNSA's varied 
missions, both now and in the future.

    3. Senator Udall. Mr. Klotz, can you please compare the NNSA 
modernization funding from fiscal year 2009 to date as compared to the 
funding during fiscal years 2000-2008?
    Mr. Klotz. Nuclear modernization funding is critical to ensure the 
safety, security and effectiveness of the nuclear weapons stockpile. 
Funding for the sustainment of the stockpile and infrastructure was in 
decline from fiscal year 2004 through fiscal year 2009. Following 
release of the Nuclear Posture Review in April 2010, President Obama's 
budget requests for NNSA have included significant increases since 
fiscal year 2010 for nuclear modernization funding. Compared to fiscal 
year 2004 through fiscal year 2009, the fiscal year 2014 Stockpile 
Stewardship and Management Plan reflects a 27 percent increase in 
NNSA's purchasing power for the Weapons Activities account from fiscal 
year 2010-fiscal year 2018, which funds nuclear modernization 
activities across the stockpile; the science, technology and 
engineering base; and the infrastructure. If confirmed, I will strongly 
support the funding required to ensure that military requirements are 
met and that the infrastructure for maintaining the Nation's nuclear 
stockpile is modernized to meet current and future demands.

    4. Senator Udall. Mr. Klotz, there has been a lot of discussion 
about the cost of the B-61 modernization program. I understand this is 
an administration and North Atlantic Treaty Organization (NATO) 
priority, but some have proposed other options--including the one 
called ``triple alt'' which has less safety and security features than 
what the administration proposed. What is your opinion of these 
proposals?
    Mr. Klotz. The B-61 is one of the oldest nuclear weapons in the 
stockpile and requires a life extension program. The B-61-12 Life 
Extension Program (LEP) will consolidate four variants of the B-61 (-3, 
-4, -7 and -10) into a single mod 12 which will provide strategic and 
extended deterrence for an additional 20 years following the first 
production unit in 2019. On February 27, 2012, the Nuclear Weapons 
Council (consisting of representatives of the Department of Defense, 
U.S. Strategic Command, and NNSA) authorized the Air Force and NNSA to 
begin Phase 6.3 Engineering Development for the B-61-12 (the Option 
3B), adopting the lowest-cost approach of the options evaluated by the 
Nuclear Weapons Council that fully meets military requirements to 
address weapon aging, safety, security and delivery system integration 
issues. This variant will allow the United States to reduce the number 
of weapons currently in the stockpile; reduce the cost of maintaining 
the B-61 in the future; set conditions for the future retirement of the 
B83 bomb; reduce the amount of special nuclear material in the 
stockpile; maintain the air leg of the triad; and, increase the safety 
and security of a critical component of the U.S. strategic and extended 
deterrent capabilities, both now and for the foreseeable future. The 
Nuclear Weapons Council rejected the proposed ``Triple Alt'' option as 
not meeting military requirements because it did not address all aging 
issues, it would require the immediate start of a second LEP to address 
those issues, and it would risk a potential capability gap until the 
second LEP was completed. Additionally, the Triple Alt would drive up 
life-cycle costs, and would not provide the critical nuclear security 
benefits that could lead to reductions in the technical hedge. 
Accordingly, I believe the approach endorsed by the Nuclear Weapons 
Council is the best option.

    5. Senator Udall. Mr. Klotz, the administration has proposed a 
large number of life extensions of our weapons systems--in addition to 
trying to rebuild some of the NNSA facilities that date back to the 
Manhattan Project. This is all happening in a time of tight budgets. 
Are you worried about trying to do too much without the necessary 
funding?
    Mr. Klotz. There is certainly cause for concern. The fiscal 
uncertainty caused by sequestration under the Budget Control Act and by 
a series of Continuing Resolutions (in lieu of regular appropriations) 
creates a very challenging environment across all NNSA missions. Any 
organization executing technically complex, unique, and long-term 
programs and construction projects needs sufficient and stable funding 
in order to plan and execute an agreed upon program of work. The sheer 
number of life extension programs and modernization efforts planned 
over the next 20 years entails a significant workload that must be 
integrated across multiple laboratories and plants. Adhering to a 
carefully laid out schedule will be a critical factor in achieving 
success. Programs must stay on track, and that in turn requires 
constancy of purpose, as well as consistent and predictable funding 
levels.

    6. Senator Udall. Mr. Klotz, the administration is proposing to 
combine an intercontinental ballistic missile warhead, the W-78, and a 
submarine missile warhead, the W-88, into a common system. Are you 
concerned about the level of risk and cost of the undertaking as 
compared to performing straight life extensions of the existing 
warheads?
    Mr. Klotz. If confirmed, I will gain a better understanding of all 
the technical details and, therefore, the risks and costs associated 
with this program. I am aware that work on an interoperable warhead for 
the Air Force and the Navy is still within the feasibility and option 
down-select study phase (phase 6.2) of the Nuclear Weapons Council 
acquisition process. Consistent with the Nuclear Posture Review, it is 
the policy of this administration to look at ways to reduce the number 
and types of weapons and the interoperable warhead concept, if 
realized, would achieve this goal. Managing the technical risks and 
ensuring sustained funding to finish the initial studies will be 
critical to determining the viability of this option going forward. In 
multiple previous assignments, I had responsibility for the operation, 
maintenance and security of deployed nuclear warheads, so I am keenly 
interested in this issue and, if confirmed, will carefully oversee 
NNSA's work on it.

                   department of energy laboratories
    7. Senator Udall. Mr. Klotz, DOE national laboratories make 
significant contributions to national security through various DOE, 
DOD, Department of Homeland Security, and Intelligence Community 
efforts. The NDAA for Fiscal Year 2013 officially designated the three 
NNSA nuclear weapons labs (Los Alamos National Laboratory, Lawrence 
Livermore National Laboratory, Sandia National Laboratories) as 
``national security'' labs. However, the committee provided 
clarification in the NDAA for Fiscal Year 2014 that this designation 
did not preclude the Federal Government from accessing and leveraging 
any and all DOE national laboratories, such as Idaho National 
Laboratory, Oak Ridge National Laboratory, and Pacific Northwest 
National Laboratory, for the purpose of national security. As 
Administrator, how do you plan to ensure that these and the other 
national laboratories are fully and directly engaged in the national 
security efforts undertaken by NNSA?
    Mr. Klotz. If confirmed, I will strive ensure that the best 
capabilities and brightest minds are brought to bear on NNSA's national 
security missions, including stockpile stewardship, nonproliferation, 
and reducing nuclear threats. I understand that the NNSA 
nonproliferation mission, for example, already draws upon the talent 
and expertise resident at Pacific Northwest National Laboratory, Oak 
Ridge National Laboratory, Idaho National Laboratory, and other 
laboratories. It is vitally important these and other national 
laboratories are fully engaged in the national security efforts 
undertaken by NNSA.

    8. Senator Udall. Mr. Klotz, the administration has proposed 
deferring indefinitely the plutonium facility at Los Alamos and using a 
temporary alternative. Are you at all concerned about this temporary 
strategy on the long-term plutonium science mission of Los Alamos and 
is there reason to be worried that under the current fiscal conditions, 
the temporary strategy will become permanent?
    Mr. Klotz. If confirmed, I am committed to ensuring the NNSA 
delivers plutonium capability--including the underlying analytical 
capabilities and infrastructure--required to ensure the safety, 
security and effectiveness of the nuclear weapon stockpile. I 
understand that the NNSA and Department of Defense are developing a 
business case analysis of the potential alternatives to constructing 
the CMRR-Nuclear Facility (NF), including a so-called modular approach. 
If confirmed, any approach proposed by NNSA will be informed by this 
joint analysis and consultations with the Secretary of Energy, as well 
directors of the laboratories, plants, and field offices. A successful 
long-term plutonium mission at Los Alamos is essential to meeting 
mission deliverables and maintaining a top-flight workforce consisting 
of scientists, engineers, and technicians and providing them with 
challenging and intrinsically interesting work, as well as world-class 
laboratory equipment, diagnostic tools, and facilities in which to 
work.

     department of energy/national nuclear security administration 
                              relationship
    9. Senator Udall. Mr. Klotz, last year, because of poor mission 
performance there was debate regarding whether the NNSA should continue 
to report to the Secretary of Energy as a semi-autonomous agency within 
DOE. What are your views on this issue?
    Mr. Klotz. My view is that the NNSA should continue to report to 
the Secretary of Energy as a semi-autonomous agency within DOE, as 
provided for by law. I believe the mission of the NNSA benefits 
significantly by having a cabinet-level representative in the Secretary 
of Energy. The well-documented challenges confronting the NNSA--from 
project management concerns, to cost overruns, to serious security 
lapses--can and must be addressed using existing authorities granted to 
the Secretary of Energy and the Administrator of the NNSA through the 
Atomic Energy Act and the NNSA Act, respectively. I fully share 
Secretary Moniz's strong commitment to ensure that NNSA fulfills 
mission tasks enumerated in section 3211 of the NNSA Act, while 
ensuring that all operations and activities are consistent with the 
principles of protecting the environment and safeguarding the safety 
and health of the public and workforce of the NNSA and its contractors.
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan
      nuclear nonproliferation in the middle east and north africa
    10. Senator Hagan. Mr. Klotz, in addition to the proliferation of 
chemical weapons, there is concern in this committee about the 
proliferation of nuclear material and know-how in the Middle East and 
North Africa region. The NNSA maintains personnel at a number of 
embassies around the world to work with the host nation and the U.S. 
Embassy on joint nonproliferation efforts. If confirmed, will you 
report back to this committee on whether you can post NNSA personnel in 
this region of the world to work on nonproliferation issues?
    Mr. Klotz. Yes, if confirmed, I will report back to the committee 
on whether the DOE/NNSA can post personnel in the Middle East and North 
Africa region to focus on these critical nonproliferation issues. I 
also understand that NNSA's nonproliferation programs are actively 
engaged in more than 120 countries, including in the Middle East and 
North Africa region. I pledge to remain committed to these activities.

                           emergency response
    11. Senator Hagan. Mr. Klotz, the NNSA is a unique resource in the 
Federal Government for responding to radiological emergencies. The most 
recent example was the use of NNSA's sophisticated detectors to track 
the radioactive plume from the stricken Fukushima reactor in Japan. The 
NNSA's Second Line of Defense program helps countries around the world 
install radiation detectors at airports and other ports of entry. It 
seems to me that an important extension of this mission would be 
helping other countries develop emergency response capabilities for 
detecting nuclear materials from an accident or a terrorist incident. 
If confirmed, will you report back to the committee on efforts you are 
taking or could take in this particular area?
    Mr. Klotz. If confirmed, I will report back to the committee on 
efforts the NNSA is taking and could take to support the development of 
international emergency response capabilities to detect nuclear 
materials from an accident or a terrorist incident. The NNSA has 
complementary divisions that devote resources to different 
international nuclear and radioactive challenges. These include the 
NNSA's Second Line of Defense Program which installs radiation 
detection systems at a variety of sites and assists countries with the 
development of national response plans for emergency nuclear and 
radiological events. The NNSA's Office of Emergency Operations also 
currently works with other countries and the International Atomic 
Energy Agency to develop nuclear/radiological emergency response 
capabilities. If confirmed, I will work to continue to provide 
assistance to countries around the world to support a compatible, 
effective, and efficient worldwide nuclear/radiological emergency 
response capability.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                         nuclear modernization
    12. Senator Inhofe. Mr. Klotz, Congress has serious concerns about 
the management of the NNSA in areas such as cost growth, schedule 
slips, security and planning. If confirmed, how do you propose to 
establish confidence in NNSA's ability to manage major construction 
projects and life extension programs for our aging nuclear force?
    Mr. Klotz. It is critical that the NNSA's weapons modernization and 
infrastructure modernization efforts, including capital construction 
projects, be completed on cost and on schedule. Otherwise, NNSA's 
fundamental ability to execute its mission is put at risk. If 
confirmed, I will place immediate emphasis on working with the 
Secretary of Energy, as well as the directors of the national security 
laboratories, plants and field offices to: (1) clarify lines of 
authority, responsibility, and accountability within the entire NNSA 
enterprise; and (2) identify steps to streamline business processes and 
eliminate needlessly burdensome, non-value-added activities that may 
undermine the NNSA enterprise and its incentive to innovate. I will 
likewise focus on adopting measures to significantly improve NNSA's 
capabilities for more complete front-end project planning, cost 
estimation, project management, and oversight of capital construction 
projects and life extension programs.

    13. Senator Inhofe. Mr. Klotz, the B-61 has already been delayed 3 
years--what are the implications for U.S. security if the Senate 
Appropriations Committee mark becomes law?
    Mr. Klotz. Based on my prior experiences at the Department of 
Defense, I fully understand that schedule delays and budget uncertainty 
in any major weapons systems acquisition program drive up overall costs 
and adversely impact the recruitment and retention of the workforce 
needed to successfully complete technically complex projects. If the 
NNSA does not have sufficient funding to move forward with the B-61-12 
LEP, as endorsed by the interagency Nuclear Weapons Council, NNSA's 
ability to meet scope and schedule will be put at risk, with serious 
implications for the Nation's strategic and extended deterrence 
capabilities, as well as its ability to sustain a safe, secure, and 
effective stockpile and to retire weapons that are no longer needed.

    14. Senator Inhofe. Mr. Klotz, how would you propose to work with 
the administration and Congress to restore full funding for the B-61?
    Mr. Klotz. The B-61 is one of the oldest nuclear weapons in the 
stockpile and requires a life extension program. The B-61-12 LEP will 
consolidate four variants of the B-61 (-3, -4, -7 and -10) into a 
single mod 12 which will provide strategic and extended deterrence for 
an additional 20 years following the first production unit in 2019. On 
February 27, 2012, the Nuclear Weapons Council (consisting of 
representatives of the Department of Defense, U.S. Strategic Command, 
and NNSA) authorized the Air Force and NNSA to begin Phase 6.3 
Engineering Development for the B-61-12 (the Option 3B), adopting the 
lowest-cost approach of the options evaluated by the Nuclear Weapons 
Council that fully meets military requirements to address weapon aging, 
safety, security and delivery system integration issues. This variant 
will allow the United States to reduce the number of weapons currently 
in the stockpile; reduce the cost of maintaining the B-61 in the 
future; set conditions for the future retirement of the B83 bomb; 
reduce the amount of special nuclear material in the stockpile; 
maintain the air leg of the triad; and, increase the safety and 
security of a critical component of the U.S. strategic and extended 
deterrent capabilities, both now and for the foreseeable future. The 
Nuclear Weapons Council rejected the proposed ``Triple Alt'' option as 
not meeting military requirements because it did not address all aging 
issues, it would require the immediate start of a second LEP to address 
those issues, and it would risk a potential capability gap until the 
second LEP was completed. Additionally, the Triple Alt would drive up 
life-cycle costs, and would not provide the critical nuclear security 
benefits that could lead to reductions in the technical hedge. 
Accordingly, I believe the approach endorsed by the Nuclear Weapons 
Council is the best option.
    If confirmed, I will work with the Department of Defense (primarily 
through the Nuclear Weapons Council), the National Security Staff, as 
well as Members of Congress and their staffs to ensure the facts 
regarding the B-61 life extension program and the serious implications 
of reduced or delayed funding are fully understood.

    15. Senator Inhofe. Mr. Klotz, will you be a forceful advocate for 
those nuclear modernization commitments that were made to secure the 
New START treaty?
    Mr. Klotz. Yes. If confirmed, I will be a forceful advocate for 
nuclear modernization funding as related to the ratification of the New 
START treaty, and as outlined in the 2010 Nuclear Posture Review and 
the 2013 updated Nuclear Weapons Employment Strategy of the United 
States.

    16. Senator Inhofe. Mr. Klotz, on April 29, the Government 
Accountability Office upheld a procurement protest regarding the 
combined Y-12 National Security Complex and Pantex Plant management 
contracts. Press reports suggest that some scores were changed at the 
11th hour of the process, which had an impact on the result. Can you 
assure us, if you are confirmed, you would look into this award and 
protest to ensure the integrity of the procurement process moving 
forward?
    Mr. Klotz. It would not be appropriate for me to comment on any 
ongoing government contract competition. However, it is my long-held 
personal view that all government contracting activities must be 
conducted fairly, with integrity, and in a manner that allows all 
stakeholders to have full confidence in the process.
                                 ______
                                 
             Question Submitted by Senator Saxby Chambliss
            new strategic arms reduction treaty ratification
    17. Senator Chambliss. Mr. Klotz, in your advance policy questions 
you stated that ``the NNSA has a unique responsibility for pursuing two 
different, but complementary principles that have traditionally guided 
American nuclear weapons policy. The first is that the United States 
must continue to lead international efforts to limit and reduce nuclear 
arsenals, prevent nuclear proliferation and terrorism, and secure 
nuclear materials across the globe. The second is that appropriately-
sized nuclear forces still play an essential role in protecting U.S. 
and allied security interests, even as the United States seeks to 
reduce the overall number and role of nuclear weapons in our national 
security policy.'' While these statements seem solid in principal, I'm 
concerned they conflict with our agreement to maintain a nuclear 
arsenal as defined in the New START treaty, especially your stated 
second responsibility of reducing the overall number and role of 
nuclear weapons in our national security policy. In particular, I am 
concerned the administration is backing away from promises made to 
modernize the entire nuclear enterprise--warheads, delivery platforms, 
and supporting infrastructure--in order to secure Senate ratification. 
If confirmed, will you aggressively advocate modernization of the 
nuclear enterprise to guarantee the United States maintains a safe, 
reliable, and credible nuclear deterrent?
    Mr. Klotz. I have personally been associated with the nuclear 
deterrent mission for nearly 4 decades, including leading the major 
command responsible for all Air Force nuclear-capable long-range 
bombers and intercontinental ballistic missiles. I strongly believe 
that the U.S. nuclear deterrent forces still play an essential role in 
protecting U.S. and allied security interests, and will do so for many 
years to come. Accordingly, the United States must maintain a safe, 
secure, and effective nuclear deterrent. The NNSA plays a critical role 
in achieving this objective through its stewardship of the nuclear 
weapon stockpile. If confirmed, I will aggressively advocate and pursue 
the programs and funding necessary to successfully complete nuclear 
weapon life extension programs to meet national policy goals and 
military requirements; to assess the health and safety of the 
stockpile; and, to modernize the aging infrastructure associated with 
critical plutonium, uranium, and other stockpile-related operations.
                                 ______
                                 
               Question Submitted by Senator Kelly Ayotte
     national nuclear security administration security of critical 
                             infrastructure
    18. Senator Ayotte. Mr. Klotz, in July 2012 at its Y-12 site, NNSA 
suffered a multifaceted security failure that allowed three trespassers 
to deface one of agency's newest and most secure facilities. Though 
steps have been taken to correct deficiencies, NNSA's efforts to 
establish the right kinds of security at its headquarters and field 
sites are still developing some 14 months after the Y-12 incident. In 
your view, what led to the Y-12 incident?
    Mr. Klotz. I have carefully reviewed the publically available 
accounts of the Y-12 security failure provided by the DOE Inspector 
General, the review conducted by Major General Sandy Finan, and the 
expert opinions requested by former Energy Secretary Chu. In my view, 
based on this information, the incident occurred because of a 
multifaceted, systemic failure of the approach to security at the plant 
and within NNSA headquarters: responsibility for the protective force 
and the physical security system was divided, security equipment was 
not repaired in a timely fashion, compensatory measures were inadequate 
and improperly executed, multiple nuisance alarms led to an attitude of 
complacency. Furthermore, oversight of security was neither rigorously, 
nor routinely, exercised and evaluated.

    19. Senator Ayotte. Mr. Klotz, does it suggest anything to you 
about the NNSA's security culture?
    Mr. Klotz. Because safety and security are paramount to the NNSA's 
mission, it will be my responsibility, if confirmed, to ensure the 
process of implementing improved oversight mechanisms, which include 
clarifying roles, authorities, and functions for the organization, is 
completed successfully. I want to emphasize that the 2012 security 
incident at Y-12 was totally unacceptable. Security of the nuclear 
enterprise is the responsibility of every employee of the NNSA, 
regardless of job, or rank.

    20. Senator Ayotte. Mr. Klotz, if culture plays a role, what 
actions do you plan to take to instill cultural change?
    Mr. Klotz. If confirmed, strengthening security at NNSA facilities 
will be one of my top priorities. I intend to draw on my experience as 
the first Commander of Air Force Global Strike Command to address the 
security culture that exists at the NNSA. Working with the Secretary of 
Energy, I will insist on strict adherence to DOE security standards and 
clarify lines of authority, responsibility, and accountability for 
meeting and maintaining those standards. In my experience, it is 
critical to remind all levels of the organization that security is an 
urgent mission, and that complacency will not be tolerated. To 
accomplish this, the status of security systems (including all outages 
and estimated time of repair) must be monitored daily at NNSA 
headquarters; security deviations and corresponding compensatory 
measures will be reviewed by Federal officials both at the field and 
headquarters levels; security procedures and responses to alarms will 
be rigorously trained, exercised, and evaluated.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
                         global supply of mo-99
    21. Senator Blunt. Mr. Klotz, I understand ensuring a stable and 
reliable supply of medical isotope molybdenum-99 (Mo-99) for the 
benefit of physicians and patients is a key priority for your office. I 
am hopeful that, if confirmed, you would work constructively with 
affected stakeholders to ensure the transition to non-highly enriched 
uranium (HEU) based production occurs smoothly and without jeopardizing 
patient access to much-needed diagnostic tools. How are you monitoring 
the global supply of Mo-99 and working with foreign governments to 
ensure the U.S. Government continues to provide needed material while 
this transition is underway?
    Mr. Klotz. If confirmed, I intend to continue NNSA's efforts to 
accelerate the establishment of reliable Mo-99 supplies produced 
without HEU, so that patients have uninterrupted access to sources of 
this important medical isotope that are also consistent with 
international HEU minimization commitments. Regular interaction with 
foreign government, commercial industry, and medical community 
stakeholders are essential. If confirmed, I will be committed to this 
interaction and to monitoring the global supply.

                    disposition of bannister complex
    22. Senator Blunt. Mr. Klotz, what is your vision for the eventual 
disposition of the Bannister Federal Complex in Kansas City regarding 
its remediation and redevelopment?
    Mr. Klotz. The NNSA has successfully developed a new, highly 
efficient facility for Kansas City Plant operations. Upon full 
transition to the new facility, the NNSA will work to transfer the 
previous facility--the Bannister Federal Complex (BFC)--to a new owner 
for redevelopment under established protocols. The goals for 
disposition are transfer of the property providing for demolition of 
obsolete facilities, remediation of legacy environmental contamination, 
and successful redevelopment of the property to continue contributing 
to the economy of Kansas City. If confirmed, you have my commitment to 
work closely with you, the other members of the Missouri and Kansas 
congressional delegations, and community leaders to ensure the BFC 
disposition process is undertaken as expeditiously and effectively as 
possible.
                                 ______
                                 
    [The nomination reference of Mr. Frank G. Klotz follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    August 1, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Frank G. Klotz, of Virginia, to be Under Secretary for Nuclear 
Security, vice Thomas P. D'Agostino, resigned.
                                 ______
                                 
    [The biographical sketch of Mr. Frank G. Klotz, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
Summary:
    Achieved the rank of Lieutenant General (three-star) in the U.S. 
Air Force. Extensive experience leading large organizations with 
technically-complex missions and a diverse, highly-skilled workforce. 
Policymaking roles at the highest levels: from Brussels to Moscow to 
the White House. Proven track record in successfully empowering peers 
and multi-functional teams to solve critical challenges with 
constrained resources. Specialized expertise in space and nuclear 
policy, arms control, U.S.-Russian relations, and Polar Regions.
Academic Degrees:
    D. Phil., Politics, Oxford University
    M. Phil., International Relations, Oxford University
    B.S., International Affairs, Air Force Academy (Distinguished 
Graduate)
Work Experience:
    Senior Fellow, Council on Foreign Relations, 2011-present, 
Washington, DC. As Senior Fellow for Strategic Studies and Arms 
Control, responsible for directing a roundtable series on nuclear 
security policy; researching and writing op-eds and articles; preparing 
grant proposals; and, participating in institutional outreach and the 
annual budgeting process.
    Independent Consultant, 2011-present, Washington, DC. Advise 
government and business organizations on national security issues, 
corporate leadership, and strategic planning. Participate in ``Track II 
diplomacy'' on strategic stability and arms control with former Indian 
and Pakistani officials, and with Russian and Chinese experts.
    Commander, Air Force Global Strike Command, 2009-2011, Barksdale 
Air Force Base; Shreveport, LA. Established and led a brand new 
organization that merged responsibility for all U.S. nuclear-capable 
bombers and missiles under a single chain-of-command. Defined vision 
and values; recruited 800 highly-talented professionals into a new 
headquarters; took charge of 5 major installations and 23,000 people; 
strengthened accountability--all within just 14 months.
    Assistant Vice Chief of Staff & Director of the Air Staff, 2007-
2009, Headquarters Air Force, Washington, DC. Oversaw the 
administration and organization of the Air Force's headquarters staff. 
Day-to-day interaction with the Air Force's ``CEO,'' major functional 
heads, and senior peers in managing policies, plans, and resources to 
support the Air Force's worldwide mission.
    Vice Commander, Air Force Space Command, 2005-2007, Peterson Air 
Force Base, Colorado Springs, CO. Second in command of a 39,400-person 
organization charged with responsibility for developing, acquiring and 
operating a global network of launch, satellite control, 
communications, and missile warning facilities. Awarded the prestigious 
General Thomas D. White Trophy by the Air Force Association for the 
most outstanding contribution to progress in aerospace in 2006.
    Commander, 20th Air Force, 2003-2005, F.E. Warren Air Force Base, 
Cheyenne, WY. Led the 9,500 personnel of the Nation's intercontinental 
ballistic missile force. Completed deactivation of 50 Peacekeeper 
missiles in compliance with the START I treaty. Partnered with Wyoming 
National Guard to develop a security training center at Camp Guernsey.
    Director for Nuclear Policy & Arms Control, National Security 
Council, 2001-2003, The White House, Washington, DC. Advised the 
President and the National Security Advisor on all aspects of nuclear 
weapons policy. Represented the White House in talks leading to the 
2002 Moscow Treaty to reduce deployed U.S.-Russian weapons by two-
thirds.
    Defense Attache, Russia, 1999-2001, U.S. Embassy Moscow. As the 
senior U.S. military officer based in Russia, advised the Ambassador 
and senior U.S. officials in developing positions on a wide-range of 
bilateral defense issues, including funding for the. disposal of 
weapons of mass destruction and cooperation in Arctic search and 
rescue.
    Previous work experience: In addition to leading organizations at 
every operational level within the Air Force, served at senior 
policymaking levels in the State Department as a White House Fellow and 
at NATO Headquarters in Brussels. While on the Air Force Academy 
faculty, directed courses on Congress and the Presidency. A list of all 
prior positions is available at http://www.af.mil/information/bios/
bio.asp?biolD=6081.
Honors and awards:
    General Larry D. Welch Award, Air Force Association, 2011
    U.S. Air Force Academy Preparatory School Class of 2011 
``Exemplar''
    Gen. Thomas D. White Space Trophy, Air Force Association, 2006
    Heritage Hall of Fame Inductee, U.S. Air Force Academy Preparatory 
School, 2002
    Military Fellowship, Council on Foreign Relations, NY
    Senior Research Fellow, National War College, Washington, DC
    White House Fellowship, Washington, DC
    One of the Ten Outstanding Young Men of America, U.S. Jaycees, 1983
    Rhodes Scholarship (Colorado and Trinity, 1973)
Affiliations:
    Member, Secretary of State's International Security Advisory Board
    Member, Committee on International Security and Arms Control 
(CISAC), National Academy of Sciences, Washington, DC
    Member, Committee on Human Spaceflight, National Academy of 
Sciences, Washington, DC
    Member, Council on Foreign Relations, New York, NY
    Member, International Institute for Strategic Studies, London
    Life member, Air Force Association, Washington, DC
    Life member, USAF Academy Association of Graduates, CO
    Member, Association of American Rhodes Scholars, Vienna, VA
    Life member, Friends of the National Museum of the U.S. Air Force, 
Dayton, OH
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate, to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Mr. Frank G. 
Klotz in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Frank Graham Klotz.

    2. Position to which nominated:
    Under Secretary of Energy for Nuclear Security/Administrator, 
National Nuclear Security Administration.

    3. Date of nomination:
    August 1, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 7, 1950; Lubbock, TX.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Nancy Hopper Klotz (maiden name: Hopper).

    7. Names and ages of children:
    Justin Michael Klotz, age 33.
    David Matthew Klotz, age 31.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Oxford University, 1973-1976, M. Phil., International Relations 
(1975) and D. Phil., Politics (1980)
    U.S. Air Force Academy, 1969-1973, S.S., International Affairs 
(1973)

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Senior Fellow, Council on Foreign Relations, Washington, DC, July 
2011-present
    Owner/Member, Klotz Consulting Group, LLC, Alexandria, VA, June 
2011-present
    Commander, Air Force Global Strike Command, Barksdale AFB, LA, 
August 2009-January 2011
    Assistant Vice Chief of Staff and Director of the Air Staff, HQ 
USAF, Pentagon, August 2007-August 2009
    Vice Commander, Air Force Space Command, Peterson AFB, CO, October 
2005-August 2007
    Commander, 20th Air Force, F.E. Warren AFB, WY, May 2003-October 
2005
    Director for Nuclear Policy and Arms Control, National Security 
Council, The White House, Washington, DC, July 2001-May 2003

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, Secretary of State's International Security Advisory Board 
(ISAB), 2012-present Consultant, Department of State, 2011-2012

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Senior Fellow, Council on Foreign Relations, Washington, DC
    Owner/Member, Klotz Consulting Group, LLC, Alexandria, VA
    Member of the Corporation, The Charles Stark Draper Laboratory, 
Inc., Cambridge, MA
    Member, Committee on International Security and Arms Control, 
National Academy of Sciences, Washington, DC
    Member, Committee on Human Space Flight, National Academy of 
Sciences, Washington, DC

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Council on Foreign Relations, New York, NY
    Member, International Institute for Strategic Studies, London, UK
    Life Member, Air Force Association, Arlington, VA
    Life Member, USAF Academy Association of Graduates, CO
    Member, Association of American Rhodes Scholars, Vienna, VA
    Member, Association of Air Force Missileers, Breckenridge, CO
    Friends of the National Museum of the USAF, Wright-Patterson AFB, 
OH

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    General Larry D. Welch Award, Air Force Association, 2011
    U.S. Air Force Academy Preparatory School Class of 2011 
``Exemplar''
    Gen. Thomas D. White Space Trophy, Air Force Association, 2006
    Heritage Hall of Fame Inductee, USAF Academy Preparatory School; 
2002
    Military Fellowship, Council on Foreign Relations, NY
    Senior Research Fellow, National War College, Washington, DC
    White House Fellowship, Washington, DC
    One of the Ten Outstanding Young Men of America, U.S. Jaycees, 1983
    Rhodes Scholarship (Colorado and Trinity, 1973)
    Several military awards and decorations, including the 
Distinguished Service Medal (with three oak leaf clusters), the Defense 
Superior Service Medal (with two oak leaf clusters), and the Legion of 
Merit (with one oak leaf cluster)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
Books:
    America on the Ice: Antarctic Policy Issues (Washington, DC: 
National Defense University Press, 1990)
Reports:
    Space, Commerce, and National Security (New York: Council on 
Foreign Relations Press, 1998)
    Achieving Consensus for a Sustainable U.S. Nuclear Posture 
(Washington, DC: Center for Strategic and International Studies, April 
2013) [Contained within Stephanie Spies and John K. Warden, Forging a 
Consensus fora Sustainable U.S. Nuclear Posture: A Report of the CSIS 
Nuclear Consensus Working Group] http://csis.org/frles/publication/
130422 Spies ForgingConsensus Web.pdf
Chapters:
    ``The President and the Control of Nuclear Weapons,'' in David C. 
Kozak and Kenneth N. Ciboski, eds., The American Presidency: A Policy 
Perspective from Readings and Documents (Chicago: Nelson-Hall, 1985)
    ``Future Soviet-American Arms Control: Implications for NATO,'' in 
William H. Kincade, et al., eds., Approaches to East-West Arms Control 
(Washington, DC: Arms Control Association, 1979)
Articles, Op-Eds, etc.:
    ``The Future of Britain's Nuclear Deterrent,'' The National 
Interest (7/24/2013)
    ``Berlin and the Arms-Control Debate,'' The National Interest (6/
27/2013)
    ``France Isn't Aiming for Nuclear Zero,'' The National Interest (5/
8/2013)
    ``Pakistan's Nuclear Past as Prologue,'' The National Interest (3/
12/2013)
    ``The U.S.-Russian Antarctic Thaw,'' The National Interest (12/12/
2012)
    ``Trouble at the Ends of the Earth,'' The National Interest (10/8/
2012)
    ``China's Growing Space Power,'' The National Interest (7/26/2012)
    ``The New Space Race,'' The National Interest (6/6/2012)
    ``GPS and the Politics of Scarce Resources,'' The National Interest 
(4/17/2012)
    ``Scientists Report on the Comprehensive Nuclear Test-Ban Treaty,'' 
cfr.org (4/2/2012)
    ``Defense Budget Tug of War,'' The National Interest (3/27/2012)
    ``Military Bases and the American Community,'' The National 
Interest (2/15/2012)
    ``American Interests in Antarctica,'' The National Interest (1/17/
2012)
    ``India, Pakistan, and Nuclear Confidence Building,'' cfr.org 
(12123/2011)
    ``Unfinished Business,'' International Herald Tribune (12/14/2011) 
(with Susan Koch and Franklin Miller)
    ``Obama's Nuclear Arms Control Agenda: Progress and Prospects,'' 
cfr.org (10/17/2011)
    ''The Future of Strategic Deterrence and the Intercontinental 
Ballistic Missile,'' High Frontier, Vol. 2, No. 4, Aug. 2006

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Frank G. Klotz.
    This 10th day of September, 2013.

    [The nomination of Mr. Frank G. Klotz was reported to the 
Senate by Chairman Levin on September 24, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was returned to the President at the end of the first session 
of the 113th Congress, on January 6, 2014, under provisions of 
Senate Rule XXXI, paragraph 6, of the Standing Rules of the 
Senate.]
                              ----------                              

    [Prepared questions submitted to Mr. Marcel J. Lettre II by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Principal Deputy Under Secretary of Defense for Intelligence 
(PDUSD(I))?
    Answer. My understanding is that the Principal Deputy Under 
Secretary of Defense for Intelligence (PDUSD(I)) is responsible for 
assisting the Under Secretary of Defense for Intelligence (USD(I)) in 
supporting the Secretary of Defense in discharging his intelligence-
related responsibilities and authorities under title 10 and title 50 of 
the United States Code (U.S.C.).
    This includes: serving as the principal intelligence advisor to the 
Secretary of Defense; exercising authority, direction, and control on 
behalf of the Secretary of Defense over all intelligence organizations 
within the Department of Defense (DOD); ensuring that intelligence 
organizations in DOD are manned, organized, trained, and equipped to 
support the missions of the Department; ensuring that the DOD 
components, which are also elements of the Intelligence Community, are 
responsive to the Director of National Intelligence (DNI) in the 
execution of the DNI's authorities; ensuring that the combatant 
commanders, the Joint Chiefs of Staff, and the civilian leadership of 
the Department are provided with appropriate intelligence support; 
ensuring that counterintelligence activities in the Department are 
conducted and managed efficiently and effectively; ensuring that other 
sensitive activities which the Department conducts or supports are 
conducted and managed efficiently and effectively; overseeing Defense 
Department personnel, facility, and industrial security to ensure 
efficiency and effectiveness; serving as the Program Executive for the 
Military Intelligence Program, and ensuring that the DOD Components 
funded by the National Intelligence Program are robust, balanced, and 
in compliance with the guidance and direction of the DNI; and ensuring 
that the Department provides the U.S. Congress with intelligence-
related information sufficient to execute its oversight 
responsibilities.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. If confirmed, I believe I have the proper background and 
experience to effectively perform the duties of the Principal Deputy 
Under Secretary of Defense for Intelligence. I have been honored to 
serve as Special Assistant under three Secretaries of Defense from 2011 
to the present. In that capacity, I advised the Secretary of Defense on 
a range of matters pertaining to U.S. national security, including 
intelligence-related matters. With functional responsibilities as the 
civilian deputy chief of staff to Secretary Panetta, I supported the 
Secretary of Defense on defense strategy, budget development, 
acquisition oversight, national security policy initiatives, and crisis 
management. I also led two Secretary of Defense transition teams. For 
my work in support of Secretary of Defense priorities, I am honored 
that Secretary Panetta awarded me the Defense Distinguished Public 
Service Award.
    As Principal Deputy Assistant Secretary of Defense for Legislative 
Affairs, I had responsibilities on a team executing legislative 
programs on Departmental priorities including the defense budget and 
policy; Iraq, Afghanistan and Pakistan; strategic nuclear arms control 
matters, including the ratification of the New Strategic Arms Reduction 
Treaty; acquisition and export control reforms; information operations, 
and Secretary Gates' efficiencies initiative. For my work on strategic 
nuclear arms control matters, Secretary Gates awarded me the 
Exceptional Public Service Award.
    As Senior Defense and Intelligence Advisor and then as Senior 
National Security Advisor to the U.S. Senate Majority Leader, I handled 
all ``Gang of Eight'' intelligence matters for the Leader, and shaped 
legislation and policy initiatives in areas including: Iraq and 
Afghanistan strategy; counterterrorism; enhancing foreign intelligence 
collection and sensitive intelligence operations; countering 
proliferation of weapons of mass destruction (WMD); and assisting in 
securing passage of defense and intelligence authorization bills, 
appropriations bills, and war supplementals.
    As a Professional Staff Member on the U.S. House of Representatives 
Permanent Select Committee on Intelligence, I supported the 
intelligence after-action reviews on the September 11 terrorist attacks 
and on Iraqi WMD, and advised on the 2004 Intelligence Reform and 
Terrorism Prevention Act which created the Director of National 
Intelligence.
    Prior to these positions, I served in the private sector, the 
foreign policy research sector, and on a congressional commission 
examining the organization and efficiency of the U.S. Government 
regarding intelligence and programs to counter WMD.
    Serving in both the legislative and executive branches of the 
Government has given me a multi-faceted appreciation for the role of 
intelligence. I have served as an intelligence consumer, ensuring the 
Nation's senior decisionmakers are supported with intelligence products 
on important decisions. I have gained an appreciation of the statutory 
roles of the Secretary of Defense, the Director of National 
Intelligence, and other senior leaders in ensuring effective 
intelligence capabilities. I have familiarity with a range of 
intelligence operations and capabilities. I have experience working 
intelligence resourcing issues through the National Intelligence 
Program and Military Intelligence Program, knowledge of key 
trajectories for our acquisition and investment programs, and some 
awareness of key counterintelligence and security priorities. I am 
personally committed to supporting the Secretary of Defense in focusing 
on the needs of the warfighter, particularly in intelligence support.
    Finally, my experience has given me a deep appreciation for the 
important role of oversight, from within the executive branch as well 
as by the legislative and judiciary branches.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the PDUSD(I)?
    Answer. If confirmed, I believe the most significant action that I 
would need to take would be to assist Under Secretary Vickers in 
executing his priorities, consistent with the priorities of the 
Secretary of Defense, by enhancing my understanding of, and assessing 
the effectiveness of, plans and activities to implement and 
operationalize those priorities. I also believe that I need to more 
deeply understand the challenges posed by the new fiscal environment, 
the resource constraints that will be faced ahead, and the 
opportunities for further efficiencies across the Defense Intelligence 
Enterprise, as we sustain and strengthen OUSD(I)'s budgetary oversight.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If confirmed, I look forward to speaking with the Under 
Secretary of Defense for Intelligence and the Secretary of Defense 
about how best I could support them. I anticipate that my duties and 
functions would include advising and assisting the Under Secretary of 
Defense for Intelligence and the Secretary of Defense on intelligence 
planning, policy and resources. I believe they would expect me to 
assist the Under Secretary of Defense for Intelligence in ensuring full 
intelligence support for ongoing operations; ensuring that intelligence 
operations conducted by DOD are effective and in compliance with all 
relevant statutes, authorities, directives, and policies; ensuring that 
the Defense Intelligence Enterprise is postured to prevent strategic 
surprise; ensuring, without abrogating the Secretary's statutory 
responsibilities, that the DNI has visibility and oversight over the 
full range of intelligence activities in the Department; and ensuring 
that the Defense Intelligence Enterprise is as efficient as possible. 
They may also assign me other duties as their priorities and my 
background and experience warrant.
                             relationships
    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of Defense.
    Answer. Pursuant to the authority, direction, and control of the 
Under Secretary of Defense for Intelligence (USD(I)), as the USD(I)'s 
principal assistant, if confirmed as the Principal Deputy Under 
Secretary of Defense for Intelligence I will serve as an advisor to the 
Secretary of Defense on all matters concerning intelligence, 
counterintelligence, and security.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed as the Principal Deputy Under Secretary of 
Defense for Intelligence (PDUSD(I)), I will provide support to the 
Deputy Secretary similar to that which I would provide to the 
Secretary, as described above.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. If confirmed as PDUSD(I), I will provide my full support to 
the USD(I) in carrying out his duties as the principal advisor to the 
Secretary of Defense on intelligence, counterintelligence, and 
security. I will keep him informed, seek his guidance and direction, 
and support him as he advises the Secretary of Defense on how to 
exercise his oversight authority on intelligence, counterintelligence, 
and security-related matters throughout the Department. At the outset, 
I will ascertain which responsibilities the USDI delegates to me, 
including a range of internal management functions within the Office of 
the Under Secretary, and focus on implementing his and the Secretary's 
priorities within the Office and across the Defense Intelligence 
Enterprise.
    Question. The other Under Secretaries of Defense.
    Answer. Each of the Under Secretaries has vital functions to carry 
out. If confirmed as PDUSD(I), I will work closely with each of them 
and their Principal Deputies and senior teams. A close relationship 
between the Under Secretary of Defense for Policy and the USD(I), and 
their Principal Deputies, is particularly important, so I intend to 
fully support those relationships. In both of my former positions 
within the Department, both as Special Assistant to the Secretary of 
Defense and as Principal Deputy Assistant Secretary of Defense for 
Legislative Affairs, I had positive relationships with a number of the 
Under Secretaries. If confirmed, I would continue to build on these 
relationships.
    Question. The Assistant Secretary of Defense for Network and 
Information Integration/Successor Organization.
    Answer. The Chief Information Officer (CIO), like its predecessor 
the Assistant Secretary of Defense for Networks and Information 
Integration, has had oversight of enabling capabilities which are 
central to the conduct of intelligence and security-related activities. 
If confirmed, I will work closely with the CIO to ensure that this 
support remains robust.
    Question. The Deputy Assistant Secretary of Defense for Detainee 
Policy.
    Answer. If confirmed, I will work closely with the DASD for Rule of 
Law and Detainee Policy on the intelligence aspects of detainee policy 
and operations.
    Question. The Assistant Secretary of Defense for Special 
Operations/Low Intensity Conflict & Interdependent Capabilities (ASD 
SOLIC&IC).
    Answer. USD(I) and the ASD SO/LIC&IC work closely together on 
several important matters, and this close partnership has grown 
substantially during Dr. Vickers' tenure as USD(I). If confirmed as the 
PDUSD(I), I will contribute to ensuring that this close partnership 
continues.
    Question. The Service Secretaries and the Service Intelligence 
Directors.
    Answer. If confirmed as PDUSD(I), I will support the USD(I) as the 
Program Executive for the Military Intelligence Program. As 
appropriate, I will work with the Secretaries of the Military 
Departments and the Service Intelligence Directors to ensure their 
intelligence requirements are met, that the Military Departments and 
Services develop intelligence capabilities appropriate for the current 
and future security environment, and that the intelligence 
organizations contribute to meeting the intelligence needs of their 
respective Military Department/Service, the Joint Force, the 
Department, and the Nation.
    Question. The General Counsel of the Department of Defense.
    Answer. In my previous positions in DOD, I have worked closely with 
the General Counsel and his staff. If confirmed as PDUSD(I), I will 
continue to work closely with the General Counsel, and seek his advice 
on the legal issues that impact USD(I)'s duties and functions.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. In my previous positions in DOD, I have worked closely with 
the Chairman and Vice Chairman of the Joint Chiefs of Staff, and other 
senior leaders on the Joint Staff, on a range of issues. If confirmed 
as PDUSD(I), I would seek to continue this close relationship to ensure 
that Defense Intelligence and the Intelligence Community meet the 
requirements of the Joint Staff and Combatant Commands.
    Question. The Commanders of the Combatant Commands, including U.S. 
Special Operations Command (SOCOM) and U.S. Cyber Command.
    Answer. If confirmed as PDUSD(I), I will support the USD(I) in 
ensuring that the intelligence needs of the commanders of the combatant 
commands, including the Commanders of U.S. Special Operations Command 
and U.S. Cyber Command, are met.
    Question. The Directors of the Defense intelligence agencies.
    Answer. If confirmed as PDUSD(I), I will assist the USD(I) in his 
exercise of the Secretary of Defense's authority, direction, and 
control over the National Security Agency (NSA), the National 
Geospatial-Intelligence Agency (NGA), the National Reconnaissance 
Office (NRO), and the Defense Intelligence Agency (DIA). I will also 
help sustain the excellent relationship that the USD(I) has with the 
DNI by working with the Office of the DNI to ensure clear and 
consistent guidance is provided to the Defense intelligence agencies.
    Question. The Director of National Intelligence.
    Answer. The USD(I) has an excellent relationship with the DNI. If 
confirmed as PDUSD(I), I intend to fully support the USD(I) and the DNI 
in their mutual goal of greater Intelligence Community integration. 
Because the USD(I) is dual-hatted as the DNI's Director of Defense 
Intelligence, if confirmed, I will support the USD(I) as he advises the 
DNI on Defense Intelligence capabilities.
    Question. The Director of the Central Intelligence Agency.
    Answer. If confirmed as PDUSD(I), I will work to sustain the 
already close relationship that the USD(I) has achieved with the 
Director and Deputy Director of the Central Intelligence Agency (CIA) 
and their senior team.
    Question. The Director of the National Counterterrorism Center 
(NCTC).
    Answer. If confirmed as PDUSD(I), I will work to sustain the 
already close relationship between USD(I) and the NCTC.
    Question. The Director of the National Counterproliferation Center.
    Answer. If confirmed as PDUSD(I), I will work to sustain the 
relationship with the Director of the NCPC.
    Question. The Deputy and Assistant Directors of National 
Intelligence.
    Answer. If confirmed as PDUSD(I), I will fully support the USD(I)'s 
relationship with the Deputy and Assistant Directors of National 
Intelligence to ensure integration and unity of effort in the direction 
and oversight of the Defense Intelligence Enterprise.
    Question. Officials in the Department of Homeland Security with 
intelligence responsibilities.
    Answer. If confirmed as PDUSD(I), I will assist the USD(I) as he 
serves as the Secretary of Defense's focal point for intelligence, 
counterintelligence, and security matters for senior officials from the 
Department of Homeland Security (DHS).
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the PDUSD(I)?
    Answer. If confirmed as the PDUSD(I), the major challenges that are 
likely to confront me are the continued unprecedented scope and pace of 
global operations and unmet demand for intelligence in an era of 
intelligence-driven operations; the need to adapt to a rapidly changing 
intelligence environment; the need to address longer-term challenges to 
prevent strategic surprise while fully supporting ongoing operations; 
and the need to do all this in a more constrained fiscal environment. 
Additionally, we must improve on protecting intelligence sources and 
methods and preventing unauthorized disclosure of information. The next 
PDUSD(I) will have to help the USD(I) overcome these challenges while 
ensuring Defense Intelligence is postured with the IC to continue to 
provide world-class intelligence.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If I am confirmed as the PDUSD(I), given the importance of 
intelligence to ongoing operations, I would do my best to assist the 
USD(I) in ensuring that sufficient resources are devoted to the Defense 
Intelligence Enterprise, and that intelligence is shared as widely as 
possible while also ensuring that it is properly protected. I would 
also reinforce and seek to effectively implement the USD(I)'s 
priorities across the Defense Intelligence Enterprise.
    Question. What do you anticipate will be the most serious problems 
in the performance of the functions of the PDUSD(I)?
    Answer. The primary near-term challenge to be faced in performing 
the functions of the USD(I) and, by extension, the PDUSD(I) is 
preparing for a period of defense budget uncertainty, which will also 
impact the Defense Intelligence enterprise and the Office of the Under 
Secretary of Defense for Intelligence.
    A second serious challenge that continues to confront the USD(I) 
and, by extension, the PDUSD(I) is the unauthorized disclosure of 
classified information, particularly as it relates to the insider 
threat, and the risks therefore posed to our forces, our military 
operations, and our foreign relations.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed as the PDUSD(I), I would support Dr. Vickers 
in managing budget uncertainty as guided by Congress and the Secretary 
of Defense. I would support the USD(I) in ensuring we continue to 
provide the best possible intelligence support to current operations, 
look for opportunities to become more efficient while maintaining and 
increasing effectiveness, and continue to push to innovate and invest 
in key capabilities that maintain America's superior technological and 
operational edge.
    In addition, I would support Dr. Vickers' commitment to 
implementing comprehensive technical, personnel, and administrative 
solutions to the challenge of unauthorized disclosures, particularly as 
it relates to the insider threat. I would work with OUSD(I), other DOD 
leaders and ODNI leadership as appropriate to ensure that the steps 
taken to correct and mitigate recently exploited vulnerabilities 
effectively deter and prevent future unauthorized disclosures.
                               priorities
    Question. How would you anticipate developing priorities for 
allocating your time as the PDUSD(I)?
    Answer. If confirmed, I would develop priorities for allocating my 
time consistent with Dr. Vickers' priorities. In general, I would 
anticipate dividing my time broadly between oversight of intelligence 
operations, the development of intelligence capabilities, and internal 
management of OUSD(I) operations, and other duties as the Secretary and 
the USD(I) may assign. In what will continue to be a resource-
constrained environment, I will assist the USD(I) in seeking to ensure 
that resources are strategically allocated to, and across, the Defense 
Intelligence Enterprise.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the PDUSD(I)?
    Answer. If confirmed, I would assist Dr. Vickers in continuing to 
execute what I understand are his overarching priorities, including: 
(1) ensuring that the full weight of Defense intelligence capabilities 
are brought to bear to achieve the President's objective of disrupting, 
dismantling, and defeating al Qaeda, creating and sustaining stability 
in Afghanistan, Pakistan and Iraq, and supporting other ongoing 
operations in which the Department is engaged or may be engaged; (2) 
ensuring that intelligence operations conducted by DOD are effective 
and in compliance with all relevant statutes, authorities, directives, 
and policies; (3) ensuring that the Defense Intelligence Enterprise is 
postured to prevent strategic surprise and fully exploit emerging 
opportunities; and (4) ensuring that the Defense Intelligence 
Enterprise is as efficient as possible. As Dr. Vickers has done, I 
would expect to pay particular attention to ensuring that: we have the 
right collection and analytical priorities; that we have a robust ISR 
architecture (both space and airborne), today and in the future; that 
the Department's clandestine operations are fully integrated with those 
of the CIA and National Clandestine Service (NCS); that the President's 
highest priority intelligence programs are fully resourced; that 
analysis addresses the needs of policy makers and operational 
commanders; that intelligence is timely, accessible and protected; and, 
where appropriate, that we aggressively exploit advances in technology 
to improve our intelligence capabilities.
      chairman of the joint chiefs of staff risk assessment (cra)
    Question. Section 153 of title 10, U.S.C., requires the Chairman of 
the Joint Chiefs of Staff annually provide Congress with ``an 
assessment of the risks associated with the most recent National 
Military Strategy (or update).''
    What is your understanding and assessment of the CRA and the role, 
if any, of the OUSD(I) staff in supporting or participating in the 
preparation of this risk assessment?
    Answer. The same legislation mandating the CRA also requires the 
Secretary of Defense to plan for mitigating risks the Chairman 
identifies as significant. My understanding is that while OUSD(I) does 
not directly participate in the CRA's development, as the principal 
staff assistant to the Secretary of Defense for all intelligence 
matters, USD(I)'s role is to support the Secretary's risk mitigation 
plan by ensuring the Defense Intelligence Enterprise meets national and 
Department requirements. USD(I) is also responsible for ensuring it has 
balanced investments towards delivering the right mix of intelligence 
capabilities to support the combatant commanders in accomplishing their 
missions and mitigating the risks identified in the CRA.
    Question. What is your understanding and assessment of how the CRA 
is used in DOD's strategic analysis process that informs the National 
Security Strategy, Quadrennial Defense Review, National Military 
Strategy, or any other department strategic decisionmaking processes?
    Answer. My understanding is that the CRA, a congressionally-
mandated report from the Chairman, is used to inform departmental 
strategic decisionmaking processes by providing the Chairman's 
assessment of the nature and magnitude of strategic and military risk 
in executing the missions called for in the National Security Strategy, 
Quadrennial Defense Review and National Military Strategy. By 
considering the range of operational, future challenges, force 
management, and institutional factors, the CRA provides a holistic 
assessment of the ability of U.S. Armed Forces to meet strategic 
requirements in the near-term. The Chairman submits the CRA through the 
Secretary of Defense, who then forwards it to Congress along with his 
congressionally-mandated annual Risk Mitigation Plan, and additional 
comments as necessary. The Chairman may also include in the report his 
recommendations for mitigating risk, such as changes in strategy, 
development of new operational concepts or capabilities, increases in 
capacity, or adjustments in force posture or employment.
    Question. If confirmed, what changes, if any, would you propose in 
how OUSD(I) supports the CRA or how it is used to support other 
strategy decision processes?
    Answer. At this time, I do not recommend any specific changes in 
how OUSD(I) supports the CRA process. However, the CRA may prove useful 
during the Joint Staff's annual Capability Gap Assessment by 
underpinning Joint Requirements Oversight Council decisions related to 
mitigating Combatant Commands' most critical capability gaps. The CRA 
would be helpful in prioritizing capability gaps and informing Joint 
Requirements Oversight Council recommendations on where to apply 
resources or other risk-reduction activities to mitigate the most 
critical DOD capability gaps. As an advisory member of the Joint 
Requirements Oversight Council and the DOD Program Executive for the 
Military Intelligence Program, the USD(I)'s role is to ensure all parts 
of the intelligence, surveillance, and reconnaissance architecture are 
integrated and optimized to meet warfighter needs.
                          combating terrorism
    Question. What is your understanding and assessment of the 
Department's comprehensive strategy for combating terrorism, both at 
home and abroad?
    Answer. The President's stated goal to disrupt, dismantle, and 
defeat al Qaeda and its affiliates is supported by the Department's 
counterterrorism strategy which focuses first on operational and 
regional defeat and then strategic and global defeat. Operational 
defeat of al Qaeda and its affiliates requires conducting operations to 
render these organizations incapable of planning and conducting 
attacks, denying them sanctuary and severing relationships to groups 
providing support to al Qaeda. Strategic defeat could then be achieved 
by preventing al Qaeda's resurgence.
    Achieving both operational and strategic defeat of al Qaeda 
requires a sustained global counterterrorism campaign with mutually 
reinforcing direct and indirect lines of operation. Building the 
capacity of our partners, preventing the acquisition and use of WMD, 
and countering radicalization is necessary, in addition to conducting 
operations to directly disrupt and dismantle terrorist groups.
    Within areas of hostilities, the Department has a lead role in 
conducting these activities, along with our international partners. 
Outside such areas where named operations authorized by the President 
are being conducted, the Department plays a complementary role to other 
instruments of national power. Recognizing that al Qaeda and its 
affiliates remain the most dangerous threat to the United States, my 
assessment is the Department--in conjunction with the whole of U.S. 
Government and our international partners--has the correct 
counterterrorism strategy in place, and it is increasingly more 
effective.
    Question. If confirmed, how would you fulfill your responsibilities 
related to combating terrorism?
    Answer. If confirmed, I will ensure the Defense Intelligence 
Enterprise is fully engaged in the Department's counterterrorism 
strategy and supportive of all efforts to defeat al Qaeda. The goal is 
to ensure we have the intelligence capabilities we need to achieve the 
President's counterterrorism objectives, by working closely with 
Military Departments and Services, the Combat Support Agencies, 
combatant commanders, the wider Intelligence Community, and our 
international partners.
    Question. How can the Department best structure itself to ensure 
that all forms of terrorism are effectively confronted?
    Answer. Close collaboration among U.S. departments and agencies and 
with our international partners is essential to our counterterrorism 
success. One example of this was the establishment of the Joint 
Interagency Task Forces, which have ensured full interagency 
contributions to the fight. The Department has developed a close 
operational partnership with the CIA and the Intelligence Community, 
and substantially strengthened our international capacity building 
efforts. I believe these types of actions posture the Department to 
effectively combat terrorism.
    Question. Are there steps the Department should take to better 
coordinate its efforts to combat terrorism with those of other Federal 
agencies?
    Answer. If confirmed, I would seek to build on and extend these 
interagency and partner collaborations. These previous efforts have 
resulted in significant improvements in coordination of operations and 
interagency concurrence; I would work hard to move the Department and 
its partners toward further integration of intelligence operations and 
counterterrorism efforts.
    Question. If confirmed, how would you ensure intelligence 
activities carried out by Special Operations Forces are adequately 
coordinated with other activities carried out by those in the 
Intelligence Community?
    Answer. Special Operations Forces coordinate their intelligence 
activities with the Intelligence Community as required by applicable 
law, policy, and agreements. My understanding is that SOCOM liaises 
with members of the Intelligence Community in the Washington, DC, area, 
at the Headquarters in Tampa, FL, and on the battlefield. If confirmed, 
I would work to ensure the demonstrable gains achieved in intelligence 
coordination with the interagency and international partners over the 
last 12 years are not only sustained, but continue to improve in order 
to achieve the U.S. Government's counterterrorism goals.
         combating proliferation of weapons of mass destruction
    Question. What is your assessment and understanding of the 
Department's strategy for countering the proliferation of WMD, and how 
that strategy fits into the broader national strategy to counter WMD 
proliferation?
    Answer. Because of my previous experience on the Office of the 
Secretary of Defense (OSD) staff, I know that the Department's strategy 
pursues robust counterproliferation policies and capabilities to 
prevent, deter, defend against, and respond to WMD threats. The DOD 
strategy supports the National Strategy to Combat WMD and related 
national strategic guidance through military force planning and 
doctrine to organize, train, exercise, and equip U.S. Armed Forces to 
combat WMD, in addition to preparing appropriate plans to address the 
defense-related aspects of combating WMD.
    Question. If confirmed, how would you fulfill your responsibilities 
related to countering the proliferation of WMD?
    Answer. If confirmed, I will work with the USD(I) to provide 
guidance and oversight to Defense Intelligence organizations and ensure 
that the Defense Intelligence organizations respond to the direction 
and priorities of the Director of National Intelligence, the Secretary 
of Defense, and DOD components with respect to WMD threats. 
Furthermore, I will support USD(I) efforts to evaluate the 
effectiveness of Defense Intelligence capabilities in identifying and 
assessing WMD threats.
    Question. How can the Department best structure itself to support 
the mission of countering the proliferation of WMD?
    Answer. If confirmed, I would continue to make this question a 
focus, just as I understand it has been for the USD(I). Based on my 
previous experience on the OSD staff, it is my sense that, consistent 
with national strategy, the Department has efforts in place to support 
the mission of countering WMD proliferation in a number of key ways, 
including interdiction and elimination operations, active and passive 
defense, consequence management, security cooperation and partner 
activities, and threat reduction cooperation.
    These missions rely on timely and actionable intelligence in a 
number of areas, including: the state of nations' WMD programs; 
terrorists' interest in those efforts; existing proliferation networks; 
national proliferation activities; and the security status of WMD 
facilities, including possible threats and vulnerabilities.
    Question. Are there steps the Department should take to better 
coordinate its efforts to counter the proliferation of WMD with those 
of other Federal agencies?
    Answer. We must continue robust efforts to counter proliferation of 
WMD using all available national and international authorities and 
apply all elements of national power--diplomatic, economic, 
intelligence, law enforcement, and military. Collaboration and 
integration among all relevant departments and agencies are key factors 
for the administration's strategy to combat WMD. Senior level attention 
can help ensure Federal agencies--as well as other key partners such as 
at the State and local level and internationally--remain synchronized 
and focused on the top priorities. If confirmed, I look forward to 
studying the opportunities for USD(I) to contribute to this important 
priority.
    Question. If confirmed, how would you ensure intelligence 
activities carried out by DOD entities and forces are adequately 
coordinated with other activities carried out by other elements of the 
Intelligence Community?
    Answer. If confirmed as PDUSD(I), I look forward to working with IC 
partners in global layered defenses to prevent, detect, and respond to 
the threat or use of WMD by terrorists. We must continue to develop 
tools and capabilities with IC partners to detect and disrupt the 
movement of WMD including precursor materials. Because we can never be 
certain of our ability to prevent or protect against all potential WMD 
terrorist attacks, collaboration among IC partners to manage and 
mitigate the consequences of such attacks continues to be necessary, as 
is improving our capabilities to attribute their source. Thus, 
continued work is necessary to harness, in an effective multinational 
way, all relevant collective resources to establish more coordinated 
and effective capabilities to prevent, protect against, and respond to 
the global threat of WMD terrorism.
                 rpa - title 10 vs. title 50 operations
    Question. According to published reports, U.S. Special Operations 
Forces (SOF) and the CIA conduct counterterrorism strikes using armed 
Remotely Piloted Aircraft (RPA). For example, RPA strikes by both U.S. 
SOF and the CIA have reportedly been conducted in Yemen. Other 
published reports indicate the Presidential Policy Guidance on 
Counterterrorism dictates a shift in all lethal RPA operations to DOD.
    In your view, what are the advantages and disadvantages from a 
legal and operational perspective of moving all lethal RPA operations 
to DOD?
    What is your understanding of the milestones that would need to be 
achieved for such a shift to occur? How long do you believe it will 
take to achieve these milestones?
    Do you expect responsibility for certain geographic areas will 
transition more rapidly than others? If so, which ones?
    Do you expect aircraft and/or personnel will be transferred from 
the CIA to the operational and tactical control of DOD in the near term 
as part of this transition?
    If confirmed, how would you ensure that lessons learned, including 
tactics, techniques, and procedures, for the use of armed RPA are 
captured and transferred to DOD?
    In response to a series of questions about counterterrorism 
operations on Meet the Press, former-Secretary Panetta indicated that 
``a lot more of this [counterterrorism operations] can be put under 
title 10'' and that ``the advantage to it is that it becomes much more 
transparent in terms of what we're doing.''
    Do you share former-Secretary Panetta's observation that there has 
been a limited amount of transparency with respect to title 50 U.S. 
counterterrorism operations?
    Do you believe additional transparency would better enable the 
United States to push back against claims of civilian casualties 
resulting from drone strikes?
    Answer. With reference to this question set, I am not able to 
comment in this medium on such activities other than to say that I 
support the President's policy on the operation of such aircraft, as 
articulated in his May 23, 2013, speech at the National Defense 
University and in related Presidential Policy Guidance. I understand 
the U.S. military has extensive experience in the use of remotely 
piloted aircraft to conduct intelligence, surveillance and 
reconnaissance, as well as direct action during armed conflict. The 
appropriate role of DOD in operating remotely piloted aircraft, 
weighing the advantages and disadvantages, is essentially a policy 
decision for the President to make. If confirmed, my focus will be to 
provide the best counsel possible on the intelligence and operational 
value for such operations and help ensure compliance with applicable 
policy in conducting such operations. I also look forward to supporting 
the USD(I) and other senior administration officials in a constructive 
ongoing dialogue with the committee on this and related issues.
                      counterterrorism cooperation
    Question. Non-DOD elements of the Intelligence Community (IC) and 
the military offer unique strengths with regard to intelligence 
collection against terrorism targets, spanning across the various forms 
of intelligence (e.g. human and signals intelligence).
    What is your understanding of the extent to which the military and 
non-DOD IC elements collaborate on counterterrorism objectives?
    Answer. My understanding is there is extensive collaboration on 
counterterrorism objectives with the non-DOD IC elements. This is done 
in several ways: participation in Joint Interagency Task Forces, 
sharing information on intelligence sources and methods, and exchanging 
officers at all levels of operations. I believe the Department and non-
DOD IC elements should continue to look for opportunities to leverage 
each other's strengths and improve collaboration.
    Question. If confirmed, how would you seek to strengthen this 
collaboration?
    Answer. If confirmed, I will seek, in concert with counterparts at 
the DNI, to enable better, faster, and deeper sharing of 
counterterrorism data, while remaining cognizant of the problem we face 
with respect to risks of unauthorized disclosure of classified 
information. There has been significant progress in this area that can 
stand as an example for future efforts. For instance, my understanding 
is the move to a common, integrated network in Afghanistan--the Afghan 
Mission Network--and one common database--the Combined Information Data 
Network Exchange--supports intelligence, military operations, command 
and control and logistics across all U.S. entities and 46 partner 
nations. This approach of establishing a common network and common 
database has allowed us to ensure that all releasable national, 
tactical and commercially available data from across the DOD and IC is 
available and discoverable.
    Question. What are the major obstacles to achieving greater 
collaboration?
    Answer. Two of the longstanding challenges to integrating the 
intelligence capabilities of DOD with those of the Department of 
Homeland Security and other associated Federal, State, and local 
agencies have been IT system compatibility and effective guidance on 
sharing classified information. With the issuance of Executive Order 
13549, Classified National Security Information Program for State, 
Local, Tribal, and Private Sector (SLTPS) Entities, we have made 
significant progress on the latter. The Executive order establishes the 
right balance between sharing classified information with SLTPS 
entities in support of homeland defense, while ensuring proper 
safeguards are in place for protecting information from unauthorized 
disclosure. If confirmed, I will seek to achieve similar progress 
against the challenge of IT system compatibility.
                    cyber and information operations
    Question. Information operations, as currently defined by DOD, 
include electronic warfare, operational security, computer network 
operations, psychological operations, and military deception. Each of 
these lines of operations is unique and complex, and, in some cases, 
they are interwoven.
    The establishment of U.S. Cyber Command organizationally separated 
cyber operations from the other elements making up ``information 
operations.'' How does this separation complicate integration across 
these elements, and what is your understanding of the Department's 
efforts to mitigate its impact?
    Answer. If confirmed, I look forward to studying this question 
further. My current understanding is that Information Operations as 
currently defined refers to the integration of various information 
activities to achieve effects across the information environment, which 
includes the cyber domain. The establishment of U.S. Cyber Command does 
not change the relationship of cyberspace operations to the other 
capabilities necessary for DOD to conduct information and cyber-related 
operations. It will, however, enhance our ability to conduct 
information operations in the cyber domain.
    Question. The National Defense Authorization Act for Fiscal Year 
2014 (S. 1197) includes a provision (section 941) that would require 
the Secretary of Defense to designate a Senate-confirmed official 
within the Office of the Under Secretary of Defense for Policy to 
provide oversight and resource management of U.S. Cyber Command's 
offensive cyber mission.
    What are your views on the roles assigned to USD(I) and the Under 
Secretary of Defense for Policy with respect to information operations, 
and particularly offensive computer network operations? If confirmed, 
what changes, if any, would you consider recommending to the Secretary 
of Defense and the USD(I)?
    Answer. My current understanding is that the information operations 
policies as outlined in Directive 3600.01 adequately define the roles 
and responsibilities of both the USD(P) and the USD(I). If confirmed as 
PDUSD(I), I will endeavor to support the USD(I) in fulfilling these 
responsibilities and support the efforts of the USD(P) in the execution 
of all assigned responsibilities under this Directive. Additionally, I 
will view it as a priority to play an appropriate role in the oversight 
of offensive computer network operations, now termed offensive cyber 
effects operations.
    Question. The National Defense Authorization Act for Fiscal Year 
2014 (S. 1197) includes a provision (section 901) that would transfer 
supervision from the Under Secretary of Defense for Intelligence (USDI) 
to the Chief Information Officer (CIO) of the Information Assurance 
Directorate (IAD) of the National Security Agency (NSA). This action is 
recommended because the cybersecurity mission of the NSA IAD falls 
under the CIO and not the USD(I).
    What are your views on the most appropriate oversight of the 
information assurance and information systems security program by the 
Office of the Secretary of Defense?
    Answer. My understanding is that currently the DOD CIO is 
responsible for providing policy guidance to the Director, National 
Security Agency/Chief, Central Security Service, regarding network 
operations and cybersecurity matters in consultation and coordination 
with the Under Secretary of Defense for Intelligence. I believe that 
this relationship is effective and allows for proper oversight of these 
functions.
                          information sharing
    Question. There are still strong barriers to sharing, or allowing 
access to, the mass of raw intelligence data that has not been included 
in finished reports or analyses and approved for dissemination within 
the Intelligence Community. Countervailing the objective of sharing 
more broadly is the need to protect sources and methods and the privacy 
of U.S. persons.
    Despite these barriers, we have also seen recent examples of 
leaking massive amounts of data by DOD employees and contractors who 
have been given access to data shared across organizations. Leaking 
such information has the potential to do serious damage to our national 
security.
    What are your views about whether it is possible to provide greater 
access to counterterrorism data to analysts and Special Forces while 
adequately protecting intelligence sources and properly minimizing 
exposure of U.S. persons' information?
    Answer. During my tenure on the OSD staff, I have seen the 
Department make progress towards increasing access to counterterrorism 
data for those who demonstrate a need for it, while also recognizing 
both our responsibility to protect sensitive sources and methods and to 
respect U.S. civil liberties and privacy laws. Mechanisms continue to 
be developed to better recognize U.S. person information and minimize 
the chances of human error. These mechanisms include the development of 
better policies, improved processes, smart systems, and active 
oversight by both the Intelligence Community and components of the 
Defense Intelligence Enterprise. Collectively, these mechanisms can 
help maximize access while minimizing risk.
    Question. How should we achieve the proper balance between sharing 
of information more broadly and protecting sensitive sources and 
methods?
    Answer. I believe that a careful balance should exist between the 
need to share intelligence information and protecting sources and 
methods. I agree with an observation Dr. Vickers has made that the need 
to share cannot trump the need to know, nor can the fear of protecting 
sources and methods override the necessity to provide necessary 
information when it is needed most. Finding the proper balance between 
sharing information and protecting sources and methods is not a static 
target; it is, in fact, constantly moving, depending upon specific 
situations, risks, and urgency. The key to success is recognizing the 
threshold and circumstances for sharing certain information and making 
sure others recognize it as well.
    Question. What role do you expect to play in addressing this issue 
if confirmed to be PDUSD(I)?
    Answer. If confirmed as the PDUSD(I), I will seek to foster 
continued policy refinements and refinements in training and capability 
development to help change behaviors and culture within the DOD 
enterprise. I will ensure that ``need to share'' remains in healthy 
tension with ``need to protect''. I will continue to drive the DNI's 
and USD(I)'s ``Write for Release'' policy by ensuring its tenets are 
taught at our schoolhouses, incorporated into our systems, and 
practiced at our analytic centers. I will work closely with our DOD and 
non-DOD partners to identify best practices and develop new incentives 
to reward prudent and effective information sharing.
                            homeland defense
    Question. In your view, what progress has been made in integrating 
the intelligence capabilities of the DOD with those of the Department 
of Homeland Security and other associated Federal, State, and local 
agencies?
    Answer. From my experience on the OSD staff, I believe DOD 
considers itself a valuable partner and enabler to the greater homeland 
defense effort. DOD works with its partners in the Intelligence 
Community to ensure relevant intelligence information is shared 
appropriately with domestic law enforcement and security agencies. 
Recent initiatives include DOD funded interagency collaboration in the 
areas of counterterrorism, countering transnational organized crime 
(CTOC), and maritime domain awareness. DOD also provides domestic 
agencies with valuable instruction in the detection of improvised 
explosive devices, conducting terrorism analysis, and mapping cultural 
terrain. Lastly, DOD fosters interagency integration via the embedding 
of DOD personnel in other agencies, including the National 
Counterterrorism Center, FBI Field Intelligence Groups, and FBI joint 
terrorism task forces.
    In addition, DOD has moved forward in formally integrating DOD 
intelligence capabilities with those of our Federal, State, and local 
partners. For example, in October, 2012, the Deputy Secretary of 
Defense designated the USD(I) as the DOD Senior Agency Official to 
implement Executive Order 13549, Classified National Security 
Information Program for State, Local, Tribal, and Private Sector 
Entities (SLTPS). Pursuant to this responsibility, DOD is negotiating a 
memorandum of understanding with DHS to allow State, Local, and Tribal 
Fusion Centers to access the Secret Internet Protocol Router Network to 
support the Fusion Centers' mission of ensuring the safety of the U.S. 
Homeland.
    Question. What challenges lie ahead for achieving better 
integration?
    Answer. I believe that successful integration demands that we 
promulgate effective guidance for sharing classified information and 
sustain attention at both leadership and operational levels. The recent 
publication of Executive Order 13587 ``Structural Reforms to Improve 
the Security of Classified Networks and the Responsible Sharing and 
Safeguarding of Classified Information'' helps enable the sharing of 
classified information. In addition, the DNI has promulgated guidance 
that further mandates effective information sharing practices. As 
architectures and systems connect the Intelligence Community to new 
partners in national security, ensuring guidance remains current, 
applicable and fully-coordinated across the U.S. Government will be of 
continuing importance.
    Question. Does the DOD's existing process for setting requirements 
adequately support the establishment of intelligence requirements for 
the homeland defense mission?
    Answer. My understanding is that DOD's current intelligence 
requirements process includes the Homeland Defense mission. DOD 
intelligence requirements continue to compete for finite resources, so 
ensuring that Homeland Defense priorities are incorporated in Defense 
intelligence priorities is a challenging, yet worthwhile endeavor. DOD 
is exploring ways to reconcile these diverse intelligence requirements 
and is actively working to improve the process.
                      defense clandestine service
    Question. DOD announced an initiative last year to establish a 
Defense Clandestine Service (DCS) that would be patterned after the 
National Clandestine Service (NCS).
    Do you support the expansion of the DCS? If so, why?
    Answer. The implementation of the DCS is an important initiative to 
improve the operational effectiveness of defense human intelligence 
(HUMINT) operations and I fully support this initiative. My 
understanding is the DCS initiative is not an expansion, but a 
realignment of existing resources, a repositioning and rebalancing of 
capabilities to improve the Department's collection against our highest 
priorities. The implementation of the DCS will also incorporate other 
benefits to the Department by enhancing our strategic partnerships with 
other Intelligence Community agencies, and by improving the career 
management and utilization of our clandestine military and civilian 
collector cadre. If confirmed, I look forward to supporting the USD(I) 
in a continued dialogue with the oversight committees about achieving 
our shared goals of enhancing U.S. HUMINT collection in the defense 
context.
    Question. In imagery intelligence, signals intelligence, and 
overhead reconnaissance, the Intelligence Community operates through a 
single consolidated agency to meet the needs of national policymakers 
and DOD. In HUMINT, however, there are two separate organizations 
funded by the National Intelligence Program budget, one run by the CIA 
and one managed by DIA.
    What is the justification for two organizations in this mission 
area in a time of severe budget austerity?
    Answer. DOD maintains organic HUMINT collection capabilities 
because it operates under different authorities than the CIA and also 
responds to different customers, priorities, requirements, and targets. 
Under title 50, U.S.C., DOD must satisfy the overall intelligence needs 
of the Department, including the needs of the Joint Chiefs of Staff and 
the combatant commanders. The Secretary of Defense established DCS on 
20 April 2012 to provide enhanced collection against high priority 
national and defense requirements. It is my current understanding that 
the DCS will operate within existing resources and will complement 
rather than duplicate the collection activities of the CIA.
    Question. Would you be supportive of a pilot program to assess the 
feasibility, advisability, and cost effectiveness of establishing a 
military division within the NCS that is responsive to the needs of the 
Defense Department yet resides within and utilizes the resources of the 
Central Intelligence Agency?
    Answer. If confirmed, one of my key responsibilities in my new 
position will be to monitor the effectiveness and cost effectiveness of 
many different DOD intelligence programs, to include the DCS, and to 
make program adjustments as necessary. It is my current sense, however, 
that it is premature at this time to consider a pilot program 
establishing a military division within the CIA. The Department has 
provided Congress with a 5 year DCS implementation plan that proposes 
increased operational integration with CIA. I believe at this time that 
the Department should first be given the opportunity to assess the 
performance of DCS and efforts towards enhanced integration with IC 
partners before trying a pilot program. I believe the Department's 
assessments of DCS performance should be shared with Congress, and if 
confirmed, I look forward to supporting the USD(I) in a continued 
dialogue with the oversight committees about achieving our shared goals 
of enhancing U.S. HUMINT collection in the defense context.
     usd(i) role in intelligence personnel, acquisition, and policy
    Question. DOD senior leaders include Under Secretaries responsible 
for personnel, policy, and acquisition matters, yet the OUSD(I) 
includes staff with responsibilities for each of these areas as they 
apply to the intelligence mission.
    In your view, should the OUSD(I) staff continue to duplicate the 
functions and resources of these other Under Secretaries? If so, why?
    Answer. In support of the USD(I), I look forward to assessing this 
in more detail, if confirmed, as the current fiscal environment does 
require a careful look to ensure inefficiencies and unnecessary 
duplication are eliminated across headquarters elements. As I have 
observed from my current and previous capacities on the OSD staff, I 
have not viewed the OUSD(I) staff functions as duplicative, but instead 
complementary. The USD(I) focuses on the unique authorities and 
requirements of the Intelligence Community workforce, managing the 
Defense Civilian Intelligence Personnel System (DCIPS) under title 10 
that is designed to respond to the unique requirements of the Defense 
Intelligence workforce. For the goals of the Intelligence Reform and 
Terrorism Prevention Act of 2004 (IRTPA) to be realized, the Defense 
Intelligence personnel system must work in tandem with those of other 
IC members (the Office of the Director of National Intelligence, the 
Central Intelligence Agency, the Federal Bureau of Investigation, etc.)
    My understanding also is that OUSD(I) provides advice and 
assistance to OUSD(AT&L) concerning acquisition programs and processes 
that significantly affect Defense intelligence, counterintelligence, 
and security components. Specifically, intelligence analysts with 
acquisition experience provide acquisition decisionmakers the clearest 
picture of intelligence capabilities, the cost to address shortfalls, 
and the risk if the intelligence needs cannot be met. In this climate 
of ever-changing threats, rapid technological advancement, and reduced 
resources this cross-functional analysis ensures discovery of cross-
enterprise efficiencies. Additionally, OUSD(I) works closely with 
OUSD(AT&L) and ODNI on programs that are funded by the National 
Intelligence Program and executed in the Department. This advice and 
assistance is integral to OUSD(I)'s Military Intelligence Program 
oversight and Battlespace Awareness Capability Portfolio Management 
responsibilities.
                        impact of sequestration
    Question. What is your assessment of the impact that sequestration 
would have on intelligence capabilities to support the combatant 
commands and the Leadership of the Department if it is sustained in 
fiscal year 2014?
    Answer. In a period of unprecedented fiscal uncertainty, the 
Department, including its intelligence components, has had a 
significant challenge over fiscal year 2013 to operate as good stewards 
in meeting near-term operational requirements. The technical mechanism 
of sequestration--reducing discretionary spending proportionally across 
all programs, projects, and activities without regard to their relative 
impacts on national security--creates systemic waste and inefficiency, 
significantly impeding the ability to support the intelligence 
requirements of the Combatant Commands and the Department's leadership. 
I would urge Congress to pass the President's budget as soon as 
possible to preserve our critical intelligence capabilities.
    Question. What is your assessment of the impact of sequestration on 
intelligence capabilities to support the combatant commands and the 
Leadership of the Department if it is sustained for the full duration 
outlined in the Budget Control Act?
    Answer. There is a strong case to be made that the threat 
environment we are facing in the face of fiscally-driven force 
structure reductions will require greater investments in intelligence. 
Others advocate a proportionate reduction to intelligence with force 
structure. It is premature to predict how the Department will resolve 
these strategic decisions, but we are on a path to provide an answer 
with the 2015 budget submission and the 2014 Quadrennial Defense 
Review.
    From an intelligence specific perspective, however, although 
technology is critical to our Nation's intelligence capabilities, 
ultimately it is the quality of the intelligence workforce that 
determines the quality of intelligence support. I am deeply concerned 
with the impact of long-term fiscal uncertainty on the training, 
compensation, morale, and retention of the intelligence workforce.
               need for independent intelligence analysis
    Question. Intelligence Analysis should be independent and free of 
political pressure that it reach a certain conclusion, including a 
conclusion that fits a particular policy preference.
    If confirmed, how would you ensure that all intelligence analysts 
within DOD, including those who may be seconded to offices that are not 
part of the defense intelligence structure, are free from such 
pressure?
    Answer. If confirmed, I would work with IC leaders to reinforce 
analytical tradecraft standards as established in Intelligence 
Community Directive 203 (Analytical Standards), and reaffirm the 
importance of objective and independent analysis at all levels. There 
is and should be no tolerance for pressure of any kind on analysts to 
reach certain conclusions.
    Question. Under what circumstances, if any, do you think 
intelligence officers and analysts should be able to testify to 
Congress on their professional conclusions regarding a substantive 
intelligence issue even if those views conflict with administration 
positions?
    Answer. If Congress requires testimony on a substantive 
intelligence issue, it should be provided, whether or not it conflicts 
with an administration position.
            control of intelligence agencies within the dod
    Question. The IRTPA of 2004 granted the DNI control over the 
preparation and execution of the National Intelligence Program budget 
and tasking of national intelligence operations. However, IRTPA also 
contained language asserting that nothing in the act should be 
construed so as to impair the authorities of secretaries of cabinet 
departments, and the Secretary of Defense has delegated ``direction, 
control, and authority''--the highest form of authority in the 
executive branch--over the national intelligence organizations within 
DOD to the USD(I).
    What are your views on the balance of authorities accorded in IRTPA 
to the DNI and to cabinet secretaries, particularly the Secretary of 
Defense?
    Answer. In my view, IRTPA struck a proper balance of authorities in 
that it gave the DNI strong authority over core intelligence functions 
for the National Intelligence Program, such as setting requirements and 
budgets, as well as determining priorities for and managing the 
analysis and dissemination of national intelligence. The Secretary of 
Defense retains the responsibility for execution of DOD intelligence 
activities, and has primary responsibility for leadership and 
management. The Intelligence Authorization Act for Fiscal Year 2010 
significantly increased the authorities of the DNI regarding leadership 
and management functions in the IC. DOD and the ODNI staffs have 
together devoted considerable time and attention to implementing these 
authorities in a manner that gives full effect to the act while 
avoiding unnecessary duplication of effort and preserving the Secretary 
of Defense's ability to execute his statutory responsibilities with 
respect to DOD's intelligence components.
    Question. What are your views on the extent of the grant of 
``direction, control, and authority'' to the USD(I) over DOD national 
intelligence organizations?
    Answer. Statutory provisions in both title 10 and title 50, U.S.C. 
assign authority, direction, and control to the Secretary of Defense 
over DIA, NSA, NGA, and NRO as components of the Department, consistent 
with the statutory authorities of the DNI. In my view, this balance of 
authorities is appropriate. This is also clearly stated in the current 
USD(I) charter.
    Question. Do you believe that the relationships, authorities, 
processes, and structures in place between the DOD and the DNI provide 
sufficient influence for the DOD to ensure that the intelligence 
capabilities DOD will need in the future to prepare for and conduct 
military operations will be developed and acquired through the National 
Intelligence Program?
    Answer. Yes. I believe that current relationships, authorities, 
processes and structures in place between DOD and the DNI have produced 
highly effective support by NIP resources for military operations.
                   analytic capabilities and capacity
    Question. The DOD Inspector General (IG) recently issued an 
assessment of DOD long-term intelligence analysis. The assessment 
concluded that the Department has significant problems in three areas. 
One is broadly termed ``nontraditional support'' to the combatant 
commands in such areas as shaping the environment and deterring 
potential adversaries, partner engagements, long-term analysis for 
campaign planning, and evaluation of cyber threats. A second is 
scientific and technical intelligence support to the acquisition 
process. A third problem area is lack of in-depth expertise in the 
analytic workforce.
    Do you agree with the IG's assessment? If so, how do you believe 
the Department can address these problems despite declines in budgets 
and personnel levels, while sustaining support for counterterrorism and 
other transnational requirements, and the pivot to the Pacific?
    Answer. I am not familiar with this assessment, but if confirmed, I 
will review it and discuss the IG's observations with Dr. Vickers to 
ascertain the best way to address the issues raised. In general, I know 
that the impact of budget and personnel reductions will be factored 
into the design of these efforts, but I am committed to ensuring that 
the capabilities of the analytic workforce are systematically and 
systemically improved. If confirmed I will continue to look for ways to 
improve effectiveness and efficiency in these areas.
    Question. Similarly, the National Commission for the Review of the 
Research and Development (R&D) Programs of the U.S. Intelligence 
Community recently concluded that the Intelligence Community makes only 
a ``limited effort'' to discern and exploit the strategic research and 
development intentions and capabilities of our adversaries.
    The Director of the Defense Intelligence Agency (DIA) recently 
established a new Defense Intelligence Officer for Science and 
Technology Intelligence. Why was this position established; what is the 
mission of this office; and how does it relate to the findings of the 
IG and the National R&D Commission?
    Answer. My understanding is the Defense Intelligence Officer for 
Scientific and Technical Intelligence (DIO S&TI) was established in 
December 2012 in response to a DIA Director Advisory Board 
recommendation as well as the DIA Scientific and Technical Intelligence 
Framework--both of which informed the National Commission for the 
Review of the Research and Development Programs of the U.S. 
Intelligence Community. The DIO S&TI is the Defense Counterpart to the 
National Intelligence Mission Manager for Scientific and Technical 
Intelligence.
    The DIO S&TI is charged with developing the first Defense 
Intelligence Enterprise Scientific and Technical Intelligence Strategic 
Intelligence Plan (SIP). The SIP is an advisory document to posture and 
align, over the next 7 years, DIA, the Combatant Command (CCMD) J2s, 
and the Military Service Intelligence Centers to discern and exploit 
the strategic research and development intentions and capabilities of 
our adversaries. It is designed to reduce the risk of strategic 
technical surprise and assist program and resource managers with 
mission prioritization across the General Defense Intelligence Program, 
DIA Military Intelligence Program, and the Department of Defense 
Foreign Counterintelligence Program. In addition to the SIP, the DIO 
S&TI directly supports and partners with USD(AT&L) and ASD(A) to 
improve scientific and technical intelligence support to the 
acquisition process.
    The DIO S&TI has met with members of the National R&D Commission 
and is sponsoring a meeting with Commission members and the DIA 
Director and Deputy Director in October 2013. In discussions with 
members of the Commission, they indicated their support to the DIO 
S&TI's efforts regarding the SIP. Specifically, both the Commission 
members and the Principal Deputy Director of National Intelligence have 
indicated that the SIP will serve as the roadmap to address foreign 
strategic research and development and support the identification of 
areas for U.S. exploitation.
                         science and technology
    Question. What technical challenges does the Intelligence Community 
face that in your opinion are currently not being addressed adequately 
by DOD science and technology (S&T) efforts?
    Answer. If confirmed, I would continue to address challenges in 
making the best use of existing and planned sensors in a rapidly 
changing environment, and then exploiting data coming from those 
sensors to answer the hard intelligence questions. The Department must 
continue its significant efforts to protect our critical space systems 
and data networks from our adversaries.
    In my view, however, there are several emerging S&T shortfalls on 
the horizon that the Department will need to address. The impact of 
next-generation communications, cryptography, sensors, and computing 
requires an understanding of adversarial investments and capability 
developments, as well as whether the Department has the appropriate 
investment strategy to maintain U.S. capability advantage. The 
Department needs to better understand the impacts and accelerating rate 
of change of developing open-source and social media on both offensive 
and defensive intelligence capabilities and threats. DOD must 
reinvigorate S&T investments in counterintelligence capabilities to 
detect and counter the insider threat; identify, track, and counter the 
cyber activities of Foreign Intelligence Entities; and protect U.S. 
intelligence personnel from active discovery and targeting.
    Question. How should the S&T portfolio contribute to rationalizing 
intelligence capability as we draw down forces after Iraq and 
Afghanistan?
    Answer. If confirmed, I would ensure an appropriate focus on the 
development of sources, tools and techniques for new and diverse 
operating environments. Understanding the complexity of intelligence 
support to small units in distributed operations while working through 
international partners is important to shaping the environment for 
campaign planning. Information sharing with nontraditional partners, 
law enforcement and coalitions provide additional challenges. Finally, 
there are lessons learned for the IC across the board from 
counterinsurgency and counterterrorism operations that will need to be 
reflected in future partnerships.
    The S&T portfolio must support the development of novel collection 
and analysis capabilities tailored to the future operating environment. 
We must rationalize intelligence sharing policies with nontraditional 
partners, law enforcement and coalitions, and ensure we deliver 
intelligence systems that meet those operational requirements. We must 
also improve our capacity to ingest and process intelligence 
information provided by such partners for use in our Defense 
Intelligence Enterprise.
    Question. What are your views on the specific missions, concepts of 
operation, technical viability, and affordability of airships as long-
duration, high altitude ISR sensor platforms?
    Answer. The Department recognizes persistence as a key development 
capability for future intelligence, surveillance, and reconnaissance 
fleet and continues to advocate for research in the area of 
stratospheric airships. Theoretically, the potential exists to 
accomplish multi-year, wide area surveillance, long stand-off distance, 
airship missions at relatively low operating cost. However, 
technological and financial hurdles remain before the Department 
commits to fielding a high altitude airship.
    Question. What specific S&T-related efforts should DOD be pursuing 
to understand the human, social, cultural terrain of adversaries?
    Answer. In my time on the OSD staff, I have witnessed the 
Intelligence Community make significant progress in developing new 
concepts and methodologies that include social and cultural insight 
into the operating environment. I believe these concepts and 
methodologies have proven critical to understanding our national 
security challenges, and if confirmed, I would support pursuing the 
necessary science and technology developments to transition these 
efforts from a labor intensive process today to a more automated 
process in the future. Advanced automated processing would allow for 
the automatic ingestion and processing of diverse sources of audio, 
text, and imagery in order to extract meaning and context from all 
sources, enabling more rapid and accurate analysis of the human, 
social, and cultural terrain, enhancing our intelligence capabilities
     role of the dod inspector general in supervising the defense 
               intelligence agencies' inspectors general
    Question. The Intelligence Authorization Act for Fiscal Year 2010 
(Public Law 111-259) established the Inspectors General of the DIA, the 
National Reconnaissance Office (NRO), National Security Agency (NSA), 
and the National Geospatial Intelligence Agency (NGA) as statutory IGs. 
The committee has learned that the IG of the NRO has taken the position 
that the DOD IG has no authority over the NRO IG as a result of this 
legislation, even for the purpose of establishing DOD-wide IG policy 
and directives.
    What are your views on the relationship between the DOD IG and the 
IGs of the Defense Intelligence Agencies?
    Answer. My understanding is that the Intelligence Authorization Act 
for Fiscal Year 2010 amended the Inspector General Act of 1978 to 
establish the IGs at the Defense Intelligence agencies as statutory IGs 
and gives them the authority to function independently with respect to 
the agency they serve. However, the Intelligence Authorization Act did 
not change the statutory authorities and responsibilities of the DOD IG 
for the entire department, to include the four Defense Intelligence 
agencies. Section 8 of the IG Act provides the DOD IG with specific 
duties and responsibilities relating to its oversight role in DOD. As 
Defense Agencies, the programs and operations of all four of the 
Defense Intelligence agencies, to include NRO, fall within those 
statutory responsibilities. Clearly, all agencies directly concerned 
and the Department as a whole will benefit from day-to-day cooperation 
and collaboration between the DOD IG and DIA IGs, and I will certainly 
encourage a strong relationship among those organizations.
                       security clearance reform
    Question. The National Defense Authorization Act for Fiscal Year 
2014 (S. 1197) includes a provision (section 931) that would require 
the Secretary of Defense and the Director of National Intelligence to 
reform the personnel security clearance investigation, adjudication, 
and transfer processes to improve security and reduce costs.
    What are your views on the need for improved security, process 
reform, greater cost transparency, and cost reductions in this area?
    Answer. Based on my previous experience on the OSD staff, I know 
that the USD(I) and the Secretary of Defense have been and remain 
committed to examining every opportunity to improve security, process 
reform, greater cost transparency, and cost reductions. If confirmed, I 
will work in support of the USD(I) with the DNI, who is the Security 
Executive Agent responsible for developing uniform and consistent 
policies and procedures to ensure the effective, efficient, and timely 
completion of investigations and adjudications relating to 
determinations of eligibility for access to classified information or 
to hold a sensitive position.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
for Intelligence?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Question Submitted by Senator Angus S. King, Jr.
                          intelligence budget
    1. Senator King. Mr. Lettre, the executive branch reported an 
unclassified combined intelligence budget in fiscal year 2012 of $75.4 
billion ($53.9 billion for the National Intelligence Program and $21.5 
billion for the Military Intelligence Program (MIP). Please provide 
your view on how, if confirmed, you plan to work with Under Secretary 
Vickers to identify duplication and increase efficiency within the 
intelligence budget while still providing all of the necessary 
intelligence support required for our national security.
    Mr. Lettre. Senator King, I appreciate the opportunity to address 
this important topic. Just as the Department's senior leadership is 
focusing on realigning the overall defense budget, identifying and 
eliminating duplication and increasing efficiency, we must do the same 
in the intelligence budgets. As I mentioned in the committee's hearing, 
I believe current budget times require us to become leaner, to trim 
overhead, reduce duplication, and shed underperforming activities. It 
will not be painless or pretty, but we must make tough choices and 
become stronger and better even as we become smaller.
    During this critical period of declining budgets and shifting focus 
away from combat operations in Afghanistan, we need to ensure we retain 
today's intelligence advantage and that Defense Intelligence is aligned 
with future changes to the Department's larger force structure.
    If confirmed, I will aggressively support Under Secretary Vickers' 
efforts to increase Joint interoperability across the Service 
intelligence systems and integration with the Intelligence Community. 
These efforts create efficiencies by improving discovery of existing 
intelligence, prioritizing collection and enabling analysis to operate 
as an enterprise. For example, Under Secretary Vickers hosts Defense 
Intelligence Offsites twice a year to address the Department's most 
critical intelligence issues, including how to make the Department's 
Intelligence, Surveillance and Reconnaissance (ISR) capabilities more 
effective and efficient.
    Further, I will engage fully in the proven processes by which the 
Office of the Under Secretary for Intelligence (OUSD(I)) identifies 
duplication and increases efficiency while still providing the 
necessary intelligence support required for our national security. 
OUSD(I) currently prioritizes, optimizes and eliminates wasteful 
redundancy in ISR capabilities via their yearly Battlespace Awareness 
(BA) Portfolio programming and MIP budgeting processes in order to 
obtain a collaborative investment strategy with the Services and 
Defense Agencies. These results are then leveraged through the BA 
Capability Integration Board (which includes the COCOMs) and the ISR 
Deputies Council--which, if confirmed, I will chair--to ensure that the 
budget maximizes efficiencies. Our process culminates yearly when the 
Under Secretary provides his recommendations to the Secretary on 
prioritized enhancements and risks for the Department's key ISR 
capabilities.
    In addition to their aggressive engagement in the Department's 
budget process, OUSD(I) ensures the Departments' intelligence 
investments are closely synchronized with the investment of the Office 
of the Director of National Intelligence (ODNI) and the National 
Intelligence Program (NIP). If confirmed, I will work closely with the 
Under Secretary in constructing the joint NIP--MIP Consolidated 
Intelligence Guidance which coordinates the yearly actions and 
investments between the two programs. In addition, OUSD(I) participates 
in the ODNI's Strategic Program Reviews and senior budget review 
processes, where I will be the representative to the Deputy's Executive 
Committee. Lastly, I will provide oversight on our joint three-Star 
forum--the NIP-MIP Integration Group (NMIG)--which is charged with 
ensuring OUSD(I) and the ODNI are in lock-step on all Department-IC 
related activities. The NMIG has within the last 24 months finalized 
NIP-MIP Rules for the Road to help guide resource binning, signed 
several resource cost share Memoranda of Agreement and helped identify 
areas where the greater Intelligence Community might reduce duplication 
and achieve efficiencies.
    The Under Secretary of Intelligence is well-positioned to lead 
changes to Defense Intelligence because it has a leadership role in 
both the Department of Defense and Intelligence Community resource 
decision processes. By engaging in these aforementioned processes and 
forums across both the Department and the greater Intelligence 
Community, I am confident we can closely manage the budget and our 
critical investments to reduce duplication and achieve the maximum 
effectiveness required for national security.
                                 ______
                                 
    [The nomination reference of Mr. Marcel J. Lettre II 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 25, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Marcel J. Lettre II, of Maryland, to be a Principal Deputy Under 
Secretary of Defense (new position).
                                 ______
                                 
    [The biographical sketch of Mr. Marcel J. Lettre II, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Marcel J. Lettre II
Education:
    Harvard University John F. Kennedy School of Government, Cambridge, 
MA

        <bullet> 1998-2000
        <bullet> Masters in Public Policy Degree awarded May 2000

    University of the South, Sewanee, TN

        <bullet> 1990-1994
        <bullet> Bachelor of Arts Degree awarded May 1994
Employment record:
    Office of the Secretary of Defense

        <bullet> Special Assistant to the Secretary of Defense
        <bullet> 2011-present

    Office of the Secretary of Defense

        <bullet> Principal Deputy Assistant Secretary of Defense 
        (Legislative Affairs)
        <bullet> 2009-2011

    Office of Senate Majority Leader Harry Reid (Minority Leader 2005-
2006)

        <bullet> Senior National Security Advisor
        <bullet> 2007-2009

        <bullet> Senior Defense and Intelligence Advisor
        <bullet> 2005-2007

    U.S. House of Representatives Permanent Select Committee on 
Intelligence

        <bullet> Professional Staff Member
        <bullet> 2002-2005

    Booz Allen Hamilton

        <bullet> Associate
        <bullet> 2000-2001

    Commission to Assess the Organization of the Federal Government to 
Combat the Proliferation of Weapons of Mass Destruction

        <bullet> Senior Policy Analyst
        <bullet> 1998-1999

    Office of the President, American University

        <bullet> Senior Staff Assistant
        <bullet> 1995-1997

    Carnegie Endowment for International Peace

        <bullet> Junior Fellow/Program Associate, Nuclear 
        Nonproliferation Project
        <bullet> 1994-1995
Honors and awards:
    Department of Defense Recognitions

        <bullet> Department of Defense Medal for Distinguished Public 
        Service (2013)
        <bullet> Office of the Secretary of Defense Medal for 
        Exceptional Public Service (2011)

    Academic Recognitions
        <bullet> Award for Excellence in Student Teaching (2000)
        <bullet> Nominee for Best Policy Analysis Exercise (2000)
        <bullet> Phi Beta Kappa (1994)
        <bullet> Bachelors Degree awarded Magna Cum Laude, with Honors 
        (1994)
        <bullet> Pi Sigma Alpha Political Science Honor Society (1994)
        <bullet> Order of the Gown Academic Honor Society (1991-1994)
        <bullet> Wilkins Scholarship (1990-1994)
        <bullet> Eagle Scout (1989)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Mr. Marcel J. 
Lettre II in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Marcel John Lettre II.

    2. Position to which nominated:
    Principal Deputy Under Secretary of Defense for Intelligence.

    3. Date of nomination:
    July 25, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 9, 1972; Gainesville, GA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Simmons Covington Lettre (Simmons), (Maiden name: Renee 
Fitzsimmons Covington).

    7. Names and ages of children:
    McKinley Covington Lettre, age 11 (``McKinley'').
    Amelia Mills Lettre, age 9 (``Amelia'').

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Terry Sanford Senior High School, Fayetteville, NC, 1987-1990, High 
School Diploma (June 1990)
    University of the South, Sewanee, TN, 1990-1994, Bachelor of Arts 
in Political Science (May 1994)
    American University, Washington, DC, 1995-1996, Non-Degree 
Coursework (two classes in economics)
    Harvard University John F. Kennedy School of Government, Cambridge, 
MA, 1998-2000, Masters in Public Policy (May 2000)

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    April 2011-Present, Special Assistant to the Secretary of Defense, 
Office of the Secretary of Defense, Department of Defense, The 
Pentagon, Washington, DC
    April 2009-April 2011, Principal Deputy Assistant Secretary of 
Defense (Legislative Affairs), Office of the Secretary of Defense, 
Department of Defense, The Pentagon, Washington, DC,
    October 2007-April 2009, Senior National Security Advisor, Office 
of Senate Majority Leader Harry Reid, U.S. Senate, The Capitol, 
Washington, DC,
    April 2005-0ctober 2007, Senior Defense and Intelligence Advisor, 
Office of Senate Majority Leader Harry Reid (2007), Office of Senate 
Minority Leader Harry Reid (2005-2006)
    March 2002-April 2005, Professional Staff Member, Permanent Select 
Committee on Intelligence, U.S. House of Representatives, The Capitol, 
Washington, DC

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Council on Foreign Relations
    Member, Appalachian Trail Conservancy

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Contribution to Obama Victory Fund, October 2012, $2,500
    Contribution to Friends for Harry Reid, October 2010, $500

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
University and Earlier
    Eagle Scout
    Phi Beta Kappa
    Bachelors Degree awarded Magna Cum Laude, with Honors
    Wilkins Scholarship
    Pi Sigma Alpha Political Science Honor Society
    Order of the Gown Academic Honor Society
Graduate School
    Award for Excellence in Student Teaching
    Nominee for Best Policy Analysis Exercise
Department of Defense Recognitions
    Department of Defense Medal for Distinguished Public Service
    Office of the Secretary of Defense Medal for Exceptional Public 
Service

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Ashton B. Carter, with Marcel Lettre and Shane Smith, ``Keeping the 
Technological Edge,'' Chapter 6 in Keeping the Edge: Managing Defense 
for the Future. Cambridge, MA: Preventive Defense Project, Belter 
Center for Science and International Affairs, Harvard Kennedy School, 
2001.
    Marcel Lettre, ``Observations During the Early Response to the 
World Trade Center Incident, September 11th, 2001'', Personal narrative 
available on the internet, September 2001.
    Marcel Lettre and James Anderson, eds. Passing the Torch: 
Recommendations to the Next President on Emerging National Security 
Issues, New York, NY: Council for Emerging National Security Affairs, 
November 2000.
    Marcel Lettre, ed. Former-Soviet Nuclear Weapon and Sensitive 
Export Status Report, Washington, DC: Carnegie Endowment for 
International Peace and Monterey Institute, July 1995.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Marcel J. Lettre II.
    This 23rd day of August, 2013.

    [The nomination of Mr. Marcel J. Lettre II was reported to 
the Senate by Chairman Levin on September 24, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 31, 2013.]
                              ----------                              

    [Prepared questions submitted to Mr. Kevin A. Ohlson by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. Subchapter XII of chapter 47 of title 10, U.S.C., 
establishes the U.S. Court of Appeals for the Armed Forces (USCAAF) and 
provides for its organization and administrative procedures.
    What is your understanding of the duties and functions of the 
USCAAF and its judges?
    Answer. The duty of the judges on the USCAAF is to ensure 
independent civilian oversight of the military courts. This 
responsibility is accomplished through appellate review of the 
decisions of the military courts of criminal appeals. The judges also 
have the duty of serving on the Code Committee which meets annually for 
the purpose of making an annual survey of the operations of the Uniform 
Code of Military Justice (UCMJ). This committee also is responsible for 
preparing an annual report that, among other things, provides 
information about the number and status of pending cases in the 
military court system.
    The function of the USCAAF is to provide independent civilian 
oversight of the military justice system through appellate review of 
the decisions of the military courts of criminal appeals. In exercising 
this responsibility, the USCAAF is responsible for reviewing those 
cases where a military court of criminal appeals has affirmed a death 
sentence, where a service Judge Advocate General orders a case to be 
sent to the USCAAF after it has been reviewed by a military court of 
criminal appeals, and where, upon petition of the accused and for good 
cause shown, the USCAAF has granted review of a decision rendered by a 
military court of criminal appeals.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. First, I served as a judge advocate officer in the U.S. 
Army for 4 years. During that time I not only became familiar with the 
military justice system by serving as a trial counsel and prosecuting a 
number of criminal cases, I also became familiar with the men, women, 
mission, and ethos of the U.S. Armed Forces. I achieved the latter by 
attending Air Assault school, attending Airborne school, being on 
``jump status'' as a parachutist at Fort Bragg for 4 years, deploying 
to four foreign countries, and serving in Saudi Arabia (with two very 
brief forays into Iraq) during the Persian Gulf War and being awarded 
the Bronze Star.
    Second, I served as a Federal prosecutor in the United States 
Attorney's Office for the District of Columbia. In that capacity I 
indicted and prosecuted a wide variety of cases in a fast-paced, high-
volume office, and I became very familiar with the criminal justice 
system and the duties and responsibilities of prosecutors.
    Third, I was appointed as a member of the Board of Immigration 
Appeals. In that position I served in a judicial capacity deciding 
appeals in immigration cases. This professional opportunity enabled me 
to gain an understanding and appreciation of the role and function of 
adjudicators at the appellate level.
    Fourth, I served as a senior manager within the Department of 
Justice, and the experiences I had in those positions would help me to 
run an efficient and productive chambers if I were to have the honor of 
being confirmed by the Senate.
    Fifth, I served for 2 years as the Chief of Staff and Counselor to 
the Attorney General, which provided me with a broad appreciation of 
the policy issues that confront any criminal justice system.
    Sixth, I currently serve as the Chief of the Department of 
Justice's Professional Misconduct Review Unit. In collaboration with 
the attorneys who work for me, I review instances where Federal 
prosecutors have been accused of misconduct, I determine whether 
misconduct actually occurred, I write detailed memoranda explaining my 
reasoning, and then I impose discipline, if appropriate. Serving in 
this position has reinforced for me the vital importance of performing 
one's duties consistent with the highest standards of honor, 
excellence, integrity, and fairness.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of a judge on the USCAAF?
    Answer. Being considered for a position that is as important, as 
challenging, and as consequential as serving as a judge on the USCAAF 
is a tremendous honor, and I would very willingly take any steps that 
may be helpful in enhancing my ability to perform those duties. 
Accordingly, if I have the privilege of being confirmed by the Senate, 
and even during the confirmation process, I will endeavor to obtain a 
more in-depth knowledge of the legal issues facing the USCAAF by 
reviewing and refreshing my memory of the UCMJ, the Rules for Courts-
Martial, and the Military Rules of Evidence, and by reading key 
decisions of the USCAAF and scholarly articles about the military 
justice system.
                             relationships
    Question. What are the respective roles of each of the following 
with respect to the military justice system, and if confirmed, what 
would your relationship be with:
    The Secretary of Defense.
    Answer. The Secretary of Defense is authorized to be a convening 
authority for general or special courts-martial, and may promulgate 
orders and regulations that are actionable under the UCMJ. Further, 
because the Secretary is responsible for the formulation of policy 
related to matters directly affecting the Department of Defense, 
working through the Joint Services Committee the Secretary may propose 
legislative or other changes to the Manual for Courts-Martial and the 
UCMJ.
    However, Article 141 of the UCMJ clearly states that the USCAAF is 
located in the Department of Defense ``for administrative purposes 
only''. Therefore, although it is unlikely that I would have any 
interaction with the Secretary of Defense even if I were confirmed, if 
I did so I would treat him or her with the greatest respect and 
courtesy, but I would always be mindful of the fact that, when it comes 
to my professional duties and responsibilities, USCAAF judges are 
wholly independent of the Secretary of Defense.
    Question. The Chief Judge of the USCAAF.
    Answer. The Chief Judge of the USCAAF is selected based on 
seniority of commission among those judges on the court who have not 
previously served in that position. The term of service is 5 years. The 
Chief Judge presides at court sessions, and oversees the administrative 
functions of the court. If confirmed, my relationship with the Chief 
Judge would be both collegial and respectful, but when it comes to 
decisionmaking in cases, I would fully exercise my independent 
judgment.
    Question. Judges of the CAAF.
    Answer. If confirmed, I would expect my relationship with the other 
judges on the court to be very collegial, and I would closely listen to 
and consider their points-of-view on all issues that come before the 
court. However, when it comes to a vote on a petition, a writ, or a 
case, if confirmed I would exercise my independent judgment in each and 
every matter.
    Question. The military courts of criminal appeals.
    Answer. The USCAAF reviews all cases where a military court of 
criminal appeals has affirmed a death sentence, where a service Judge 
Advocate General orders the case to be sent to the USCAAF after it has 
been reviewed by a military court of criminal appeals, and where, upon 
petition of the accused and for good cause shown, the USCAAF has 
granted review of a decision rendered by a military court of criminal 
appeals. If confirmed, I would give full and due consideration to the 
analysis and reasoning of members of the military courts of criminal 
appeals in each and every case that comes before me. However, I 
ultimately would exercise my independent judgment in deciding each 
case.
    Question. The General Counsel of the Department of Defense.
    Answer. Although the General Counsel is the chief legal officer of 
the Department of Defense, Article 141 of the UCMJ states that the 
USCAAF falls under the Department for administrative purposes only. 
Thus, the court does not fall under the purview, management, or 
supervision of the General Counsel. However, the General Counsel does 
have the authority to exercise those delegated duties as the Secretary 
may prescribe, and thus coordinates any proposed legislative changes to 
the UCMJ that the Joint Services Committee may recommend. If confirmed, 
my relationship with the General Counsel would be respectful and 
cordial, but I would act independently in my role as a judge.
    Question. The Judge Advocates General of the Army, Navy, and Air 
Force, and the Staff Judge Advocate to the Commandant of the Marine 
Corps.
    Answer. The Judge Advocates General of the Army, Navy, and Air 
Force, and the Staff Judge Advocate to the Commandant of the Marine 
Corps, provide advice on military justice matters to the Service Chiefs 
and to the Commandant, respectively. They are responsible for such 
actions as supervising the administration of military justice, 
overseeing the judge advocates and military judges within their 
service, and reviewing and taking action on certain records of trial. 
Additionally, a Judge Advocate General may certify questions to the 
USCAAF, and serves as a member of both the Joint Services Committee and 
the Code Committee. If confirmed, my relationship with these senior 
officers would be collegial and respectful, but I would always maintain 
my judicial independence and neutrality.
                              legal issues
    Question. What do you anticipate would be the most significant 
legal issues you will be called upon to address if confirmed as a judge 
of the USCAAF?
    Answer. If confirmed, undoubtedly one of the most significant legal 
issues I would be called upon to address would be the changes to 
Article 120 of the UCMJ regarding the offense of rape. I also firmly 
believe that when deciding cases, the judges on the USCAAF must 
continue to be vigilant about protecting the integrity of the military 
justice system from the corrosive effects of command influence and 
ineffective assistance of counsel. Finally, I believe the court will be 
confronted with issues arising from the use of emerging technology as 
it pertains to such issues as possession of child pornography and the 
right of privacy.
     jurisdiction of the u.s. court of appeals for the armed force
    Question. In your view, has the USCAAF fulfilled the expectations 
of Congress when the Court was established in 1951?
    Answer. Yes, very much so. Not only has the court provided the 
necessary civilian oversight of the military justice system, it also 
has provided independent judicial review in military justice cases and 
has served as a bulwark against unlawful command influence.
    Question. In your view, are there any legislative changes needed 
regarding the role and responsibilities or the jurisdiction of the 
USCAAF?
    Answer. I am not aware of the need for any changes at this time.
                    ucmj jurisdiction over civilians
    Question. Section 552 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 amended the UCMJ to clarify that 
persons serving with or accompanying an Armed Force in the field are 
subject to the UCMJ during a contingency operation as well as in a time 
of declared war.
    What challenges, if any, do you anticipate that the armed services 
and the USCAAF will encounter in implementing the UCMJ with regard to 
persons serving with or accompanying an Armed Force in the field?
    Answer. As with any new law that has not been thoroughly reviewed 
by the courts, there likely will be a number of challenges to this 
piece of legislation when and if it is invoked in any additional cases 
in the future. First and foremost, if it is a United States citizen who 
is prosecuted pursuant to this provision of the UCMJ, the issue will 
undoubtedly arise whether its application to a civilian violates a 
defendant's constitutional guarantees, such as the right to a trial by 
a jury of one's peers. Second, the CAAF will have to wrestle with 
determining the scope of the law. For example, issues that may arise in 
any specific case will likely include determining the definition of 
such phrases as ``serving with or accompanying an Armed Force,'' ``in 
the field,'' and ``contingency operation.'' Third, there will be issues 
about whether the appropriate person within the military command 
structure exercised jurisdiction in any particular case.
    The armed services also will likely encounter challenges when 
implementing this UCMJ provision. I anticipate that when confronted 
with a case where this UCMJ provision is potentially applicable, the 
Armed Services may become concerned about the need to delay taking 
action until the Department of Justice has reviewed the case to 
determine whether the Department of Justice will exercise jurisdiction. 
Further, when a particular case arises, depending upon the 
circumstances of the alleged offense, the American public may express 
concerns about the invocation of this provision of the UCMJ and the 
resulting prosecution of a civilian who is a United States citizen in 
the military justice system.
                        decisions of the uscaaf
    Question. Please describe the three decisions of the USCAAF since 
2005 which you believe to have been the most significant.
    Answer.

        <bullet> United States v. Lewis, 63 M.J. 405 (C.A.A.F. 2006). 
        This case reiterates the fact that unlawful command influence 
        is the mortal enemy of military justice and that, where it is 
        found to exist, judicial authorities must take those steps 
        necessary to preserve both the actual fairness, and the 
        apparent fairness, of criminal proceedings.
        <bullet> United States v. Prather, 69 M.J. 338 (2010). In this 
        case the accused was charged with aggravated sexual assault for 
        engaging in sexual intercourse with a person who was 
        substantially incapacitated. The court held that an accused's 
        burden to prove the affirmative defense of consent by a 
        preponderance of the evidence unconstitutionally shifted the 
        burden onto the defense to disprove an element of the offense.
        <bullet> United States v. Lee, 66 M.J. 387 (2008). After 
        conviction at court-martial, the accused alleged that his 
        detailed defense counsel failed to adequately disclose a 
        conflict of interest. The USCAAF held that counsel provided to 
        or retained by the accused must provide reasonably effective 
        assistance, and that where a constitutional right to counsel 
        exists, there is a correlative right to representation that is 
        free from conflicts of interest.

    Question. What is your view of the role of stare decisis in terms 
of prior decisions of the USCAAF?
    Answer. The doctrine of stare decisis is an essential guiding 
principle for any appellate court. In the military justice system this 
doctrine is especially important because it provides both commanders 
and servicemembers with needed stability, consistency, and 
predictability regarding the handling of criminal offenses. However, 
there may be rare instances where applicable precedent should be 
overturned. This step should only be taken after long and careful 
consideration, and in those instances when it does occur, I believe the 
judges of the USCAAF are obligated to explain their rationale for doing 
so clearly, fully, and persuasively.
    Question. In view of Article 36 of the UCMJ, what is your view as 
to the hierarchy of sources of law that must be applied by the USCAAF 
in determining appropriate rules of evidence and procedure in courts-
martial?
    Answer. First and foremost, the USCAAF must ensure that its 
decisions are consistent with the Constitution. The USCAAF is also 
bound by the decisions of the U.S. Supreme Court. Next, the court 
should look to the provisions of the UCMJ, other applicable Federal 
statutes, and its own precedents. Then the court should apply the rules 
and procedures set forth in the Manual for Courts-Martial. Finally, the 
court should look to DOD and Service regulations.
    Question. In your view, what is the appropriate standard for 
determining when the USCAAF should apply a rule that is different from 
the rule generally applied in the trial of criminal cases in the 
Federal district courts?
    Answer. When the Manual for Courts-Martial and the Military Rules 
of Evidence provide guidance in a particular matter, and when that 
guidance is not contrary to or inconsistent with the Constitution, 
binding Supreme Court precedent, or the UCMJ, then those rules are 
applicable. It is only when the Manual for Courts-Martial or the 
Military Rules of Evidence are silent on an issue that the court should 
look to analogous rules applicable in the Federal civilian courts.
                        military justice system
    Question. In your view, what are the major strengths and weaknesses 
of the military justice system?
    Answer. In my view, the following are the major strengths of the 
military justice system. First, every accused in the military is 
entitled to a free, qualified defense counsel at every step of the 
judicial process. Second, there are sufficient resources devoted to 
criminal cases in the military so that every case receives the 
necessary and proper amount of attention. Third, in the military 
justice system there is no undue pressure for either the Government or 
the defendant to plea bargain a case. Fourth, the accused's right to be 
present at, and to participate in, the Article 32 proceeding far 
exceeds any rights that a similarly-situated defendant would have in 
the civilian justice system. Fifth, the jurors in the military are 
uniformly educated, informed, and engaged.
    In my view, the two greatest weaknesses of the military system are 
the potential for command influence to play a role in the ultimate 
outcome of a criminal case, and the flawed perception among some that 
the military system doles out ``drumhead justice'' because of their 
mistaken belief that the rights of the accused are not adequately 
protected.
    Question. What is your view of the relationship between the rights 
of service personnel and the disciplinary role of commanders?
    Answer. At the core of the UCMJ is the delicate balance that exists 
between the rights of servicemembers on one hand and the need for 
commanders to maintain good order and discipline on the other hand. In 
the military justice context, an effective military force is grounded 
both on the high morale that is sustained by the knowledge and belief 
of the average servicemember that he or she will be treated fairly and 
that his or her rights will be protected, and on the ability of 
commanders to enforce high standards of behavior in a wide variety of 
situations, some of which are not analogous to those found in civilian 
society. In striking this balance, the UCMJ empowers a commander to 
take such steps as serving as the convening authority and selecting 
court members, while at the same time providing servicemembers with a 
variety of rights and with strong protections against command 
influence. The fact that fundamental changes to the military justice 
system have been relatively rare over the last 6 decades serves as a 
testament to the fact that the UCMJ has struck this balance correctly.
    Question. Do you think that changes to the military justice system 
are called for in light of the experiences of the armed services in 
Iraq and Afghanistan?
    Answer. I believe the military justice system has proven itself to 
be remarkably adept at adjusting to the varied situations arising out 
of the many operations, missions, and deployments of our Armed Forces 
during the last decade. Accordingly, I am not currently aware of any 
changes that are needed in light of the experiences of the Armed 
Services in Iraq and Afghanistan. However, if confirmed I would always 
be keenly interested in any recommendations that may be generated by 
the Joint Services Committee or the Code Committee, as well as any 
legislative proposals that may be made by, or to, Congress, including 
the Senate Armed Services Committee.
                   capital cases in the armed forces
    Question. The ability of the military justice system to provide 
qualified personnel and resources necessary to capably defend and 
prosecute death penalty cases and respond to the constitutional 
requirements associated with such cases has come under scrutiny.
    What is your understanding of the requirements under constitutional 
precedent for the defense of a capital case?
    Answer. In Strickland v. Washington, 466 U.S. 668 (1984), the 
Supreme Court established a framework for determining whether the 
performance of a defense counsel in a capital case was constitutionally 
adequate. Specifically, Strickland requires the defendant to prove both 
that the counsel's representation was deficient, and that there is a 
reasonable probability that, but for the counsel's deficiency, the 
outcome of the trial would have been different. In later cases the 
Supreme Court held that failure to conduct a thorough investigation of 
potential mitigating factors may constitute ineffective assistance of 
counsel. (See Wiggins v. Smith, 123 S. Ct. 2527 (2003); Porter v. 
McCollum, 130 S. Ct 447 (2009).)
    Question. Based on your review of military jurisprudence regarding 
death penalty cases since the U.S. Supreme Court ruling in Furman v. 
Georgia, what are the issues or errors that have most frequently 
resulted in overturning of death sentences on appeal?
    Answer. In the vast majority of death penalty cases in the military 
that have been overturned on appeal, the reason for the reversal has 
been due to ineffective assistance of counsel.
    Question. What do you consider to be the essential elements in 
preparing court-martial practitioners for the prosecution and defense 
in capital cases?
    Answer. In capital cases it is critically important for both the 
trial counsel and the defense counsel to be top-notch lawyers of the 
highest caliber. Next, these lawyers must receive the necessary 
training in order to ensure that they are fully aware of all the facets 
of handling a capital case so that they will be informed and effective 
advocates at each stage of the proceedings. Further, these lawyers must 
have significant experience litigating cases; training is vitally 
important, but there is no substitute for hands-on litigation 
experience in the courtroom when handling a capital case. Next, the 
lawyers must have ready access to assistance and support in handling 
certain legal aspects of issues that are unique to capital cases. 
Lastly, the lawyers on both sides must have adequate time to prepare 
their cases. Even great lawyers with great training, great experience, 
and great access to resources cannot perform at a level commensurate 
with what we must demand in all capital cases unless they have adequate 
time to analyze and prepare the case.
                           command influence
    Question. The problem of command influence, including instances 
involving judge advocates as well as commanders, is a constant threat 
to the military justice system.
    What is your view as to the role of the USCAAF in addressing this 
problem?
    Answer. As the USCAAF reiterated in United States v. Lewis, 
unlawful command influence is the mortal enemy of military justice, and 
where it is found to exist, judicial authorities must take those steps 
necessary to preserve both the actual and apparent fairness of criminal 
proceedings. Accordingly, the USCAAF has been, and must continue to be, 
vigilant against the corrosive effects of unlawful command influence at 
every stage of legal proceedings. Further, the court must ensure that 
all allegations of unlawful command influence are fully litigated at 
trial and on appeal. Finally, in those cases where unlawful command 
influence has occurred, the court must take strong, appropriate action 
to remedy the problem.
                precedent under military commissions act
    Question. The Military Commissions Act of 2009 (MCA) provides that 
the judicial construction and application of the UCMJ, while 
instructive, is ``not of its own force binding on military commissions 
established under this chapter.'' In addition, the MCA amended Article 
39 of the UCMJ to provide that the findings, holdings, interpretations, 
and other precedents of military commissions ``may not form the basis 
of any holding, decision, or other determination of a court-martial.''
    What is your understanding of the relationship between the judicial 
construction of the UCMJ and the judicial construction of the MCA?
    Answer. The rules of evidence and procedure in the Manual for 
Military Commissions (MMC) differ in several important respects from 
those in the Manual for Courts-Martial (MCM). For example, the MMC 
allows for admission of certain hearsay evidence ``not otherwise 
admissible under the rules of evidence applicable in trial by general 
courts-martial''. The Manual notes that these differences ``reflect the 
[Secretary of Defense's] determinations that departures are required by 
the unique circumstances'' arising out of the conduct of certain 
military and intelligence operations. However, despite these 
differences, the procedures for military commissions are generally 
based on the procedures for trial by general courts-martial under the 
UCMJ. Nonetheless, as noted above, while the judicial construction and 
application of the UCMJ are to be considered instructive, they ``are 
not of their own force binding on military commissions.'' Therefore, 
the judges within the military commission system are authorized to 
interpret the MMC provisions that are the same or similar to provisions 
in the UCMJ in a different manner than they otherwise would be required 
to interpret them if USCAAF precedential decisions were binding upon 
them.
                                 ______
                                 
    [The nomination reference of Mr. Kevin A. Ohlson follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 21, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Kevin A. Ohlson, of Virginia, to be a Judge of the U.S. Court of 
Appeals for the Armed Forces for the term of 15 years to expire on the 
date prescribed by law, vice Andrew S. Effron, term expired.
                                 ______
                                 
    [The biographical sketch of Mr. Kevin A. Ohlson, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Kevin A. Ohlson
Education:
    Washington and Jefferson College

        <bullet> September 1978-May 1982
        <bullet> Bachelor of Arts Degree awarded May 1982

    University of Virginia School of Law

        <bullet> August 1982-May 1985
        <bullet> Juris Doctorate Degree awarded May 1985
Employment record:
    U.S. Department of Justice Professional Misconduct Review Unit

        <bullet> Chief
        <bullet> January 2011-present

    Office of the Attorney General

        <bullet> Chief of Staff and Counselor to the Attorney General
        <bullet> January 2009-January 2011

    Executive Office for Immigration Review

        <bullet> Director
        <bullet> Deputy Director
        <bullet> Member of the Board of Immigration Appeals
        <bullet> March 2001-January 2009

    Office of the Deputy Attorney General

        <bullet> Chief of Staff to the Deputy Attorney General
        <bullet> June 1997-March 2001

    Office of the U.S. Attorney for the District of Columbia

        <bullet> Special Counsel to the U.S. Attorney
        <bullet> Assistant U.S. Attorney
        <bullet> December 1989-June 1997

    Headquarters, XVIII Airborne Corps, Saudi Arabia

        <bullet> Judge Advocate Officer
        <bullet> October 1990-April 1991

    Office of the Staff Judge Advocate, Fort Bragg

        <bullet> Judge Advocate Officer
        <bullet> January 1986-December 1989
Honors and awards:
    Department of Justice Edmund J. Randolph Award (2011)
    Department of Justice Distinguished Service Award (2010)
    Department of Justice Edmund J. Randolph Award (2001)
    Bronze Star (1991)
    Kuwait Liberation Medal (1991)
    Southwest Asia Service Medal (1991)
    National Defense Service Medal (1991)
    Army Achievement Medal (1989)
    Honduran Parachutist Badge (1988)
    Army Parachutist Badge (1986)
    Phi Beta Kappa (1982)
    James G. Blaine Political Science Prize, Washington and Jefferson 
College (1982)
    George C. Marshall Award (1981)
    Army Air Assault Badge (1980)
    Four-Year Army R.O.T.C. College Scholarship (1978)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Mr. Kevin A. 
Ohlson in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Kevin Alan Ohlson.

    2. Position to which nominated:
    Judge, U.S. Court of Appeals for the Armed Forces.

    3. Date of nomination:
    March 21, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 29, 1960; Town of Holden, Worcester Couty, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Carolyn Florence Davis.

    7. Names and ages of children:
    Matthew Edward Ohlson, age 16
    Katherine Elizabeth Ohlson, age 14

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Wachusett Regional High School; attended 1974 to 1978; high school 
diploma received in June 1978
    Washington and Jefferson College; attended 1978 to 1982; Bachelor 
of Arts degree received in May 1982
    University of Virginia School of Law; attended 1982to1985; Juris 
Doctorate degree received in May 1985

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Deputy Director, Executive Office for Immigration Review. I 
supervised the Board of Immigration Appeals and the Office of the Chief 
Immigration Judge; my employer was the United States Department of 
Justice; my office was located at 5107 Leesburg Pike, Falls Church, VA; 
I served in this position from December 2002 to March 2007.
    Director. Executive Office for Immigration Review. I served as the 
head of the agency which is responsible for adjudicating all 
immigration cases nationwide; my employer was the U.S. Department of 
Justice; my office was located at 5107 Leesburg Pike, Falls Church, VA; 
I served in this position from March 2007 to January 2009.
    Chief of Staff and Counselor to the Attorney General. I advised the 
Attorney General on legal issues, and I managed the attorneys and staff 
who worked within the Office of the Attorney General; my employer was 
the U.S. Department of Justice; my office was located at 950 
Pennsylvania Avenue, NW, Washington, DC; I served in this position from 
January 2009 to January 2011.
    Chief, Professional Misconduct Review Unit. I handle disciplinary 
actions and State bar referrals in all instances where the Office of 
Professional Responsibility has made a preliminary finding that a 
Federal prosecutor has engaged in professional misconduct; my employer 
is the U.S. Department of Justice; my office is located at 800 Follin 
Lane, S.E., Vienna, VA; I have served in this position from January 
2011 to the present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    I served on Active Duty as an officer in the U.S. Army from January 
1986 to December 1989. I then was recalled to Active Duty from October 
1990 to April 1991 and served overseas during the Persian Gulf War. I 
also served on inactive Reserve duty from January 1990 to September 
1990, and from June 1991 to October 1995.
    I served as an Assistant U.S. Attorney in the District of Columbia 
from December 1989 until June 1997 (with a break in service during the 
time I was recalled to Active Duty, as mentioned above).
    I served as Chief of Staff to the Deputy Attorney General at the 
Department of Justice from June 1997 to March 2001.
    I served as a member of the Board of Immigration Appeals at the 
Department of Justice from March 2001 to November 2002.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Not applicable.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, American Legion (1992 to present)
    Member, Veterans of Foreign Wars (1992 to present)
    Member, Virginia State Bar (1985 to present; on inactive status 
since 1995)
    Member, Bar of the District of Columbia (1992 to present)

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Not applicable.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Not applicable.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    06/27/2008, $1,000 contribution to Obama for America
    07/01/2008, $200 contribution to ActBlue
    02/15/2012, $250 contribution to Dwight Holton for (Oregon) 
Attorney General
    09/17/2012, $500 contribution to the Obama Victory Fund

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Four-year Army R.O.T.C. college scholarship (1978)
    Phi Beta Kappa (1982)
    James G. Blaine Political Science Prize, Washington and Jefferson 
College (1982)
    George C. Marshall Award (1981)
    Bronze Star Medal (1991)
    Southwest Asia Service Medal with Two Bronze Service Stars (1991)
    Kuwait Liberation Medal (1991)
    National Defense Service Medal (1991)
    Army Achievement Medal (1989)
    Army Air Assault Badge (1980)
    Army Parachutist Badge (1986)
    Honduran Parachutist Badge (1988)
    Department of Justice Edmund J. Randolph Award (2001)
    Department of Justice Distinguished Service Award (2010)
    Department of Justice Edmund J. Randolph Award (2011)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Co-author of ``Dealing with the Media in High Profile White Collar 
Crime Cases: The Prosecutor's Dilemma,'' in the 1995 edition of the 
American Bar Association's publication, White Collar Crime.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Not applicable.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Kevin A. Ohlson.
    This 16th day of May, 2013.

    [The nomination of Mr. Kevin A. Ohlson was reported to the 
Senate by Chairman Levin on September 24, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 16, 2013.]


  NOMINATIONS OF MR. MICHAEL D. LUMPKIN TO BE ASSISTANT SECRETARY OF 
 DEFENSE FOR SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT; HON. JAMIE 
   M. MORIN TO BE DIRECTOR OF COST ASSESSMENT AND PROGRAM EVALUATION 
   (CAPE), DEPARTMENT OF DEFENSE; AND HON. JO ANN ROONEY TO BE UNDER 
                         SECRETARY OF THE NAVY

                              ----------                              


                       THURSDAY, OCTOBER 10, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
Hagan, Gillibrand, Blumenthal, Donnelly, Kaine, King, McCain, 
and Ayotte.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Creighton Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, general counsel; 
Jason W. Maroney, counsel; Mariah K. McNamara, special 
assistant to the staff director; William G.P. Monahan, counsel; 
Michael J. Noblet, professional staff member; Roy F. Phillips, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: Adam J. Barker, 
professional staff member; Steven M. Barney, minority counsel; 
William S. Castle, minority general counsel; Allen M. Edwards, 
professional staff member; Thomas W. Goffus, professional staff 
member; Anthony J. Lazarski, professional staff member; Daniel 
A. Lerner, professional staff member; Natalie M. Nicolas, 
minority staff assistant; and Lucian L. Niemeyer, professional 
staff member.
    Staff assistants present: John L. Principato and Brendan J. 
Sawyer.
    Committee members' assistants present: Carolyn A. Chuhta, 
assistant to Senator Reed; Christopher M. Cannon, assistant to 
Senator Hagan; Mara L. Boggs, assistant to Senator Manchin; 
Chad R. Kreikemeier, assistant to Senator Shaheen; Moran Banai 
and Brooke Jamison, assistants to Senator Gillibrand; Ethan A. 
Saxon, assistant to Senator Blumenthal; David J. Park, 
assistant to Senator Donnelly; Mary A. Naylor, assistant to 
Senator Kaine; Stephen M. Smith, assistant to Senator King; 
Paul C. Hutton IV, assistant to Senator McCain; Lenwood A. 
Landrum, assistant to Senator Sessions; Todd P. Harmer, 
assistant to Senator Chambliss; Bradley L. Bowman, assistant to 
Senator Ayotte; and Craig R. Abele and Marissa Prianti, 
assistants to Senator Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets this morning to consider the 
nominations of Jamie Morin to be Director of Cost Assessment 
and Program Evaluation (CAPE), Michael Lumpkin to be the 
Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict (ASD(SO/LIC)), and Jo Ann Rooney to be Under 
Secretary of the Navy.
    Before we proceed, we all wish our colleague, Jim Inhofe, 
well. He is doing well. I spoke to him shortly after his 
operation. It was quite amazing actually. He sounded in great 
shape. He was raring to go, and it was not too many hours after 
his operation. We all look forward to his rejoining us soon. In 
the meantime, we have our former ranking member with us again. 
We are delighted that Senator McCain is able to fill in for 
him.
    We welcome our witnesses and their families. We extend our 
gratitude to the family members who support our nominees 
through the long hours, the countless demands of their careers 
in public service. We all recognize the essential role that 
families play. Without support, our nominees and the people who 
hold these offices just simply cannot succeed. Our witnesses, 
during their opening statements, should feel free to introduce 
family members or others who are here to support them.
    We are delighted to welcome Senator John Hoeven. John, 
there you are. You will be introducing Mr. Morin in a few 
moments following Senator McCain's remarks.
    The positions to which our witnesses have been nominated 
are some of the most demanding in the Department of Defense 
(DOD).
    The Director of Cost Assessment and Program Evaluation 
provides independent analytic advice to the Secretary and 
Deputy Secretary of Defense on issues spanning the entire 
defense landscape. In some ways this is an unenviable role as a 
truly independent cost estimating director will never be 
popular in the Department, but he will make our acquisition 
system stronger and more precise by forcing the Department to 
take a hard look at current requirements and highlighting those 
that are unrealistic.
    Mr. Morin, we are pleased to note, is a Michigan native, by 
the way. We are very proud of you and that qualification alone, 
as far as I am concerned, would be enough for your 
confirmation, but you are also well qualified for this 
undertaking because you have served as Assistant Secretary of 
the Air Force for Financial Management and Comptroller and as 
the Senior Defense Analyst for the Senate Budget Committee 
prior to that.
    The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict (ASD(SO/LIC)) has one of the most 
demanding and diverse portfolios in the Department. If 
confirmed, Mr. Lumpkin will have policy responsibility for DOD 
efforts in many critical areas, including counterterrorism, 
counternarcotics, stability operations, building partner 
capacity, counterthreat finance, and transnational criminal 
organizations.
    Fortunately, Mr. Lumpkin is no stranger to these issues, 
having served previously as Principal Deputy ASD(SO/LIC), and 
the committee looks forward to hearing how he would balance the 
various responsibilities that he would have.
    The Under Secretary of the Navy serves as the Deputy and 
Principal Assistant to the Secretary of the Navy and is 
responsible for the day-to-day management of the Department. If 
confirmed, Dr. Rooney will be tasked to lead and manage the 
Navy's Senior Executive Service and undertake the role of Chief 
Management Officer for the Navy charged with improving 
departmental business practices in support of its warfighting 
mission. This vital management function is made all the more 
essential by the austere budget environment that we currently 
face.
    Dr. Rooney will surely draw on her experience in the 
private sector as a former university president and financial 
attorney, as well as draw on her time as the Principal Deputy 
Under Secretary of Defense for Personnel and Readiness.
    All of our nominees are well-qualified for the positions to 
which they have been nominated. We look forward to their 
testimony.
    Senator McCain?

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I echo your 
sentiment and hope for the speedy recovery of Jim Inhofe. He 
says he feels like an Olympian, and I do not doubt it. We wish 
him well and hope to have him back here soon, which I am told 
will be very soon, and we certainly look forward to his 
continued energetic and informed participation as ranking 
member of this committee.
    I welcome the families and thank Senator Hoeven for his 
testimony on behalf of Dr. Morin. That may bring his nomination 
into doubt in my mind. [Laughter.]
    If confirmed, these nominees will enter DOD in the midst of 
great difficulty, caused in large part by the failure of 
Congress to address budget sequestration or authorize and 
appropriate in a timely and predictable way, but also by 
systemic departmental shortcomings which contribute to a 
``culture of inefficiency'' that is robbing warfighters of 
reliable equipment and absolutely failing the taxpayers.
    Mr. Lumpkin, if confirmed as Assistant Secretary of Defense 
for Special Operations and Low Intensity Conflict, you will be 
asked to set policies and practices for our Special Operations 
Forces. As we draw down conventional forces in Afghanistan, the 
worldwide demand for special operations remains high. Threats 
to American interests and international stability persist and 
grow.
    In Syria, Bashar Assad placates the international community 
with overtures about destroying stocks of chemical weapons, his 
country fractures, threatening our friends and allies in the 
region.
    Iran's new figurehead, President Hassan Rouhani, has 
commenced a charm offensive that does nothing to change the 
fact that the Ayatollah's regime continues to destabilize the 
Middle East, support terrorist organizations that have killed 
Americans, espoused the destruction of Israel, oppressed its 
own people, developed ballistic missiles, and assists Assad in 
the slaughter of more than 110,000 Syrians.
    All the while, our forces continue to distinguish 
themselves prosecuting operations against terrorists throughout 
the world.
    We as a Government have been, as Secretary Bob Gates 
articulated so well, utterly unable to predict what future 
threats we may face and what forces we will need to respond to 
them. We will look to you to ensure that our asymmetric 
military capabilities remain strong.
    Unfortunately, some of the most serious risks to the 
institution of DOD and, by extension, our national security are 
right here in our Government. Congress has provided the 
Government with precious little certainty about future funding, 
which has caused untold amounts of scrapped planning, 
administrative double work, and waste. The sequester, an 
embodiment of a divestiture of moral courage, has created 
budgetary instability that is causing well-performing programs 
to be cut, program officials to be furloughed, and readiness 
accounts to be plundered, all of which undermine any attempts 
to properly husband taxpayers' dollars.
    In the midst of these across-the-board reductions, Congress 
and the White House have pushed the Government into a partial 
shutdown, replete with examples of how we are failing our 
troops and our constituents.
    But DOD's own difficulty in efficiently and effectively 
managing large programs and business processes have also 
contributed to the position it finds itself in. After more than 
a decade of profligate spending and lax internal oversight, 
senior defense leaders must now impel cultural change 
throughout the Department regarding procurement practices, 
financial improvement, and business transformation.
    Dr. Rooney, if confirmed, as Under Secretary of the Navy, 
you will be charged with executing the full scope of the 
Department of the Navy's business activities, a requirement 
akin to being the chief operating officer at a Fortune 500 
company. You would be responsible for changing a Navy culture 
that permits inefficient buying of goods and services and 
management of resources. The Gerald R. Ford aircraft carrier 
and the Littoral Combat Ship (LCS) are only the most recent 
examples of programs that have been undertaken without regard 
for affordability or what our combatant commanders and 
servicemembers actually need. The Navy faces severe management 
challenges that require, perhaps more so than ever, world-class 
skill and judgment of those in management. We are keen to know 
what about your background qualifies you to manage such an 
organization at a time when the Navy not only needs established 
leadership but demonstrated results.
    Dr. Morin, in this era of declining budgetary resources, 
the need for independent, unbiased, and auditable cost 
assessments of current and future programs is paramount. We 
simply cannot afford to pour treasure into programs that under-
perform, deliver unreliable capability, or for which we are 
unable to determine lifecycle costs. If confirmed as Director 
of Cost Assessment and Program Evaluation, one of your most 
important functions will be to provide accurate cost and 
schedule analysis of major defense acquisition programs. This 
analysis is vital since cost estimates prepared by the Services 
for major weapons systems have historically proved inaccurate.
    You are well aware that this committee created the position 
you have been nominated to fill, and I believe CAPE has 
demonstrated some success in driving cost-consciousness into 
the Services. But as budgets continue to shrink and entrenched 
interests fight even harder for resources, your job will be 
more difficult than your predecessors. I look forward to 
hearing how you attempt to accomplish your charter.
    Mr. Chairman, I thank you for convening this hearing. DOD 
desperately needs strong leadership, and I hope to leave today 
confident that our witnesses will provide it.
    I'd like to submit a statement on behalf of Senator Inhofe.
    Chairman Levin. Thank you so much, Senator McCain. The 
statement will be entered into the record.
    [The prepared statement of Senator Inhofe follows:]
             Prepared Statement by Senator James M. Inhofe
    Thank you, Mr. Chairman. I join you in welcoming our witnesses 
today and thank them and their families for their willingness to serve 
our great Nation.
    Mr. Lumpkin, this administration has repeatedly downplayed the 
threat from al Qaeda and its terrorist affiliates to our national 
security. Just the other week before the United Nations General 
Assembly, the President made a statement that I found deeply troubling. 
He stated that ``The world is more stable than it was 5 years ago.'' I 
couldn't disagree more. Over the last decade, the number of countries 
al Qaeda and its affiliates operate from has increased dramatically. 
Rising chaos throughout the Middle East and Africa is allowing al Qaeda 
and other terrorist groups to regain their balance and expand their 
spheres of control. From newfound safe havens, these groups remain 
determined to plan and launch attacks against the United States and our 
interests. Despite premature claims by this administration about the 
demise of al Qaeda and its affiliates, it's increasingly clear that the 
threat from these groups isn't declining, it's evolving. As such, we 
must remain vigilant and on the offensive. Underpinning these efforts 
must be a comprehensive strategy to combat what are increasingly global 
terrorist networks. We cannot simply kill our way to victory. We must 
attack their safe havens by empowering regional partners through 
sustained security assistance and engagement and we must enhance our 
efforts to disrupt the illicit financial networks that fund their 
operations. I look forward to hearing your assessment of our current 
efforts and how you believe we can improve their effectiveness.
    Dr. Rooney, if confirmed you will be the second-highest ranking 
civilian in the Navy and will serve as the Navy's Chief Management 
Officer. In this capacity, you will be responsible for the overall 
performance of the Navy's business operations. To be candid, I am 
concerned by your lack of experience with the Navy and apparent lack of 
qualifications for this position. I look forward to hearing why you 
feel you are qualified for this position and the right person to help 
lead the Navy as it confronts unprecedented budget uncertainty, 
declining readiness, and mounting strategic instability.
    Mr. Morin, if confirmed as the Director of the Cost Assessment and 
Program Evaluation, you will be responsible for providing the Secretary 
of Defense with unbiased analysis and cost and schedule assessments for 
the entire defense program. To date, this program has been plagued by 
cost overruns and schedule delays, withholding important capabilities 
from the battlefield. A significant contributing factor to these 
problems has been a lack of accountability throughout the acquisition 
process. Without accountability, our ability to provide the best 
possible equipment for our men and women in uniform on budget and on 
schedule will be severely undermined. As Director, you will play a 
vital role in informing the decisions of the acquisition community by 
conducting upfront risk assessments and feasibility studies to ensure 
we maximize each of our increasingly scarce acquisition dollars. I 
believe your time as Comptroller of the Air Force will serve you well 
in as you take on these challenges.
    Again, I thank our nominees for being with the committee today and 
look forward to their testimony.

    Chairman Levin. Senator Hoeven, we are really delighted to 
have you here today, and we know that you have the kind of 
schedule that we all have. We are going to call on you first 
for your introduction, and then you are free to leave.

 STATEMENT OF HON. JOHN HOEVEN, U.S. SENATOR FROM THE STATE OF 
                          NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman. It is good to be 
with you, also the former ranking member, Senator McCain.
    Like both of you and all of our colleagues, I want to 
extend my best wishes for a full and speedy recovery to Ranking 
Member Senator Inhofe. From what I have heard, the doctor said 
he will have two or three times as much energy as he had before 
the bypass surgery. That is bad news for his staff. I am 
telling you right now. [Laughter.]
    Chairman Levin. As though we did not have enough problems 
before his surgery.
    Senator Hoeven. Yes, because he went full speed before.
    It is an honor to have this opportunity to make a few 
comments and to introduce and to recommend very strongly to you 
Dr. Jamie Morin. If I could take a few minutes to do that, I 
would appreciate it very much.
    I am here to strongly support the nomination of Dr. Jamie 
Morin to be the second Director of CAPE for DOD. I know that 
you and your staffs know Jamie from his work over the last 4 
years as Air Force Comptroller, and before that, you know him 
from his 6 years working for our friend and former colleague, 
Senator Kent Conrad, as the senior defense analyst on the 
Budget Committee. I think it goes without saying that he is 
very highly regarded in this chamber.
    The Director of CAPE--and Senator McCain made, I think, 
some comments that are absolutely right on the mark in regard 
to CAPE. But the Director of CAPE is a critical person in the 
Pentagon. He or she needs to be clearly independent, needs to 
be a strong analyst, a leader, and above all, needs to be fair. 
I think that goes exactly to what Senator McCain was talking 
about in terms of understanding both costs and lifecycle 
capabilities for our weapons systems.
    I have had the pleasure of working with Jamie for almost 
the entire 10 years he has been working in Washington, 
including most of my tenure as Governor of North Dakota. 
Although he has never worked for me, there have been many times 
that I have relied on his absolutely well-informed and first-
rate advice.
    Based on my experience, I think he has exactly those 
attributes that we need in CAPE, attributes like independence, 
fairness, and skill in leading analysis and, Mr. Chairman, as 
you have said, at such a critical time for our armed services. 
Truly we need somebody with his skill and background to provide 
people with your skill and background with the information that 
you need to make these important decisions.
    He is an excellent match for Secretary Hagel's needs in 
these very challenging times. His past experiences provide him 
with the best possible preparation to become the CAPE Director. 
Based on his experience in Congress, Jamie understands that it 
is vital for DOD to estimate costs as accurately as possible. 
The time he spent as Comptroller of the Air Force only 
reinforces the large fiscal challenges facing the Defense 
Department and the critical need to make the right choices now 
to preserve and enhance our armed services for the coming 
years. That is the perspective we need in a CAPE Director.
    As I was thinking through this introduction today, I spoke 
with Senator Conrad, and he emphasized that Jamie has 
exceptionally good judgment that will serve him very, very well 
in this position. In fact, he told me that Jamie developed his 
great interest in the military as a youngster because he used 
to sit and read the encyclopedias, something I know that 
Senator McCain did extensively as well. In reading the entire 
encyclopedia set, the thing that really grabbed his interest 
was military power, air power, aviation, military equipment, 
and that has been a passion of his ever since. Who better, with 
that kind of interest and passion, to be the leader at CAPE?
    From my personal experience, I would note that I have heard 
over and over from our military leadership about the great work 
Jamie has done for our Air Force, and I have witnessed it 
firsthand. He has kept a strategic perspective and a calm head 
in today's very turbulent times, and I can attest that Jamie 
has provided excellent, unbiased information and assessment to 
me whenever I have asked him about Air Force programs.
    Not surprisingly, Jamie also hasa very strong academic 
background, a Ph.D. from Yale, a master's degree in public 
policy from the London School of Economics, and a bachelor's 
degree in the foreign service studies from Georgetown.
    Outside of Government, he has worked as a strategist, an 
analyst, and an economist. Our country needs able people to 
volunteer for public service, and our military needs the 
support of dedicated civilians like Jamie. I am very glad to 
see that he has been nominated for this important position, and 
I am very confident that this committee will see more great 
contributions from him in the years to come. It is my hope that 
this committee can act quickly on his nomination and that we 
can move with similar speed on the Senate floor so that the 
Defense Department can benefit from his expertise as soon as 
possible in this very critical time.
    One other personal note that I will mention in closing is 
that I can remember about 8 years ago during the base 
realignment and closure (BRAC) process, Jamie was extremely 
involved in that very difficult and arduous process putting 
together incredible amounts of information not only for Senator 
Conrad. At that time, I was Governor and we were working with 
BRAC. It was, needless to say, a difficult, challenging 
environment, one that required a tremendous amount of 
information, intelligence, somebody that knew what was going on 
and could work well with many different people in many 
different capacities. I would have to say that Dr. Morin went 
24/7 for I do not know how long, but at the very same time, his 
son Liam, who is here today, was born. I think that just 
reflects on the kind of dedication that this individual has for 
our country and for our Armed Forces. Isn't that just exactly 
what we want in the people that work at DOD in these very, very 
important positions, so important not just for our armed 
services but for our country?
    Thank you so much, Mr. Chairman and Acting Ranking Member 
Senator McCain. Thank you so much for this opportunity to 
provide some comments.
    Chairman Levin. Thank you very much, Senator.
    Senator McCain. Mr. Chairman, that might be one of the 
longest introductions of a witness----[Laughter.]
    But I loved every word of it. Thank you.
    Chairman Levin. Senator Hoeven, your reference to Senator 
McCain reading the encyclopedia will be placed in the 
classified portion of this record. [Laughter.]
    Thanks so much.
    First, we are going to ask our standard questions at this 
time. I think all three of you know that because of our 
legislative and oversight responsibilities, we must be 
confident that we are going to receive testimony, briefings, 
and other communications and information that are accurate, 
prompt, straight from the shoulder. Let me ask you all the 
following questions.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Mr. Lumpkin. Yes.
    Dr. Morin. Yes.
    Dr. Rooney. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Lumpkin. No.
    Dr. Morin. No.
    Dr. Rooney. No.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    Mr. Lumpkin. Yes.
    Dr. Morin. Yes.
    Dr. Rooney. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Lumpkin. Yes.
    Dr. Morin. Yes.
    Dr. Rooney. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Lumpkin. Yes.
    Dr. Morin. Yes.
    Dr. Rooney. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Lumpkin. Yes.
    Dr. Morin. Yes.
    Dr. Rooney. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Mr. Lumpkin. Yes.
    Dr. Morin. Yes.
    Dr. Rooney. Yes.
    Chairman Levin. Thank you very much. We will start with Dr. 
Morin.

   STATEMENT OF HON. JAMIE M. MORIN, TO BE DIRECTOR OF COST 
    ASSESSMENT AND PROGRAM EVALUATION, DEPARTMENT OF DEFENSE

    Dr. Morin. Chairman Levin, Senators, it is a delight to 
come before this committee again today as a nominee of 
President Obama, in this case for Director of Cost Assessment 
and Program Evaluation. Thank you for the opportunity to appear 
before a committee that continues to make a real difference for 
our Nation and our men and women in uniform.
    I, of course, want to join each of you in wishing a very 
speedy recovery to Ranking Member Inhofe and we all look 
forward to seeing him back.
    It was a real honor to be nominated by the President to be 
just the second Director of Cost Assessment and Program 
Evaluation, to have the chance to support Secretary Hagel in 
these very challenging and interesting times. If this committee 
and the Senate consent, I will certainly be privileged to serve 
in that position and to continue the progress that has been 
made to institutionalize CAPE and to implement the 
recommendations of the Weapons Systems Acquisition Reform Act 
that occurred under Christine Fox's leadership as the first 
director.
    CAPE is a remarkable organization really that builds on the 
history of two incredibly important groups in DOD that have 
done great work over many years. The systems analysts, who 
started out life as Secretary McNamara's whiz kids and became 
the respected and sometimes feared gurus of program analysis 
and evaluation, have I think been recognized widely as the best 
analytic team in Government. It would be a privilege to lead 
them. The hard-core number crunchers in cost assessment are 
also world-class and sometimes the first in DOD to see problems 
with our major programs and a crucial check on what can be 
undue optimism in starting and carrying out our acquisition 
programs.
    I have had the pleasure of working over the last 4 years 
closely with both of those teams, and again, it is humbling to 
be asked to be the leader of such an impressive group of 
dedicated public servants.
    I appreciated very much Senator Hoeven's generous 
introduction, maybe too generous of an introduction. It was a 
pleasure getting to know him and Senator Conrad during my 
tenure working for the Budget Committee and, by extension, the 
great people of the State of North Dakota. I think team North 
Dakota was always a very tight-knit group, and I appreciate 
that tight-knit group coming forward to introduce me here. Even 
as a proud Michigander that never lived in the State, I am 
honored to have a second State to call my home.
    I do think my time observing those two leaders, Senator 
Hoeven and Senator Conrad, I got to see them in action quite a 
bit, and despite the fact they did not always agree on specific 
positions or policies, they managed to get a remarkable amount 
done for their State and for the Nation. I think that should be 
an example to all of us about how we can partner to do better 
to serve this Nation and to serve the men and women who take an 
oath to defend us and our Constitution.
    I wanted to take just one moment to introduce some family 
members here today, if I may. My wife Megan sitting behind me 
here has been just a wonderful partner throughout my time in 
public service. She is making her own distinguished 
contributions to this Nation. She and my son Liam, sitting next 
to her, returned just a year ago from a 2-year Foreign Service 
assignment in Ethiopia.
    Chairman Levin. Your son we are talking about? A 2-year 
assignment.
    Dr. Morin. He is a distinguished diplomat. [Laughter.]
    He has cocktail party stories, too. [Laughter.]
    They did great work there and they did it despite the fact 
that Meg had to carry a lot of weight without an accompanying 
spouse. They have put up with my unpredictable schedule both in 
the Senate and at the Pentagon.
    I am also deeply grateful that my parents, Bridget and 
Michael Morin, were able to come out from Michigan to be with 
us here today, as well as a number of other family and friends 
to support me in this hearing, including my brother-in-law, 
Rick Baker.
    Mr. Chairman, I will just close briefly by saying this 
committee has vested very serious responsibilities in the 
Director of CAPE. They are going to require first-class 
analysis. They are going to require very much an independent 
attitude to the problems that come before me. As a scholar of 
the defense budget process and now after 4 years in the 
Pentagon, I know that, if confirmed, my job will be to support 
the Secretary of Defense in developing a program and a budget 
in a time of extraordinary uncertainty.
    The most helpful thing that could come to DOD right now 
would be greater certainty and ability to plan. Planning in the 
face of this level of uncertainty is extraordinarily difficult. 
But if I am confirmed, you can have confidence that I will 
continue to provide the top leadership of DOD and this Congress 
with independent, responsive, analytically rigorous advice on 
the toughest issues facing our military and our Nation.
    Again, my thanks to the President and to Secretary Hagel 
for their confidence, and I look forward to the committee's 
questions. Thank you.
    Chairman Levin. Thank you so much.
    We will now go to Mr. Lumpkin.

 STATEMENT OF MR. MICHAEL D. LUMPKIN TO BE ASSISTANT SECRETARY 
  OF DEFENSE FOR SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT

    Mr. Lumpkin. Thank you, Mr. Chairman, Senator McCain, 
members of the committee. It is a privilege to appear before 
you this morning. I appreciate the opportunity to answer any 
questions you may have regarding my nomination as Assistant 
Secretary of Defense for Special Operations and Low Intensity 
Conflict.
    I wish to thank President Obama, Secretary Hagel, and Under 
Secretary Miller for their support of my nomination.
    I would like to thank my family and friends whose continued 
support through the years has been essential.
    Also, I would be remiss if I did not thank the soldiers, 
sailors, airmen, marines, and their families with whom I have 
had the honor to serve during my career in the special 
operations community. Their selfless commitment to our Nation 
and to each other is a testament to the strength of our 
military community and to our Nation. If confirmed, it will be 
my deepest honor to serve.
    The mission of the Special Operations and Low Intensity 
Conflict Secretariat is critical to national defense. 
Succeeding at the tip of the spear requires intensive training, 
state-of-the-art equipment, speed, agility, and also important 
is the decisive so-called soft skills such a problem-solving, 
relationship-building, and collaboration. I believe my 
operational and policy background as Principal Deputy Assistant 
Secretary of Defense for SO/LIC and as Special Assistant to the 
Secretary of Defense, in conjunction with my career as a U.S. 
Navy SEAL in both wartime and peace, has prepared me for this 
nomination. Additionally, my work in the private sector has 
equipped me with executive level management capabilities that 
are required to be successful in today's constrained fiscal 
environment.
    If confirmed, I look forward to working with this committee 
and Congress as a whole to address the national security 
challenges we face in order to keep America safe, secure, and 
prosperous. I will make every effort to live up to the 
confidence that has been placed in me.
    I am grateful for your consideration, and I look forward to 
your questions. Thank you very much.
    Chairman Levin. Thank you, Mr. Lumpkin.
    Dr. Rooney?

 STATEMENT OF HON. JO ANN ROONEY, TO BE UNDER SECRETARY OF THE 
                              NAVY

    Dr. Rooney. Good morning. Thank you, Chairman Levin, 
Senator McCain, other members of the committee. I also join in 
wishing a continued speedy recovery for Senator Inhofe.
    I would also like to thank Secretary Mabus and Secretary 
Hagel for their support, as well as President Obama for the 
confidence he has shown by placing my name into nomination to 
be the next Under Secretary of the Navy.
    This opportunity is both a privilege and an honor, but it 
is also very humbling. If confirmed, I will work tirelessly to 
ensure that I live up to what is an enormous amount of trust 
that will be placed in me.
    I would like to take a moment to recognize some very 
important people in my life who have traveled from Florida, 
Massachusetts, and Pennsylvania to be with me here this 
morning. My mom, Patricia Rooney, is with me today and I want 
to introduce her and offer her my heartfelt and special thank 
you. It is because of her support and that of my late dad John 
that I am with you today. My dad, an Army veteran, and my mom, 
a retired public school elementary teacher, taught me that 
anything is possible, I must embrace opportunities and 
challenges, and that I should always strive to leave an 
organization and the people in it better for my efforts.
    I am also so fortunate to have several other special people 
in my life here today. My dearest friend of over 30 years and 
sister of the heart, Linda Pitsorni, along with her daughter 
Veronica, a freshman in college, are here. Veronica, along with 
her sister Alessia, who is completing a semester abroad and 
here in spirit, are in so many ways my nieces.
    Father Jim Rafferty, a very dear friend and extended family 
member, is someone with whom I have logged many nautical miles 
sailing the waters throughout New England and the East Coast.
    A retired teacher, John Danes, a retired engineer from the 
National Aeronautics and Space Administration, traveled with 
mom from Florida to lend their support.
    Finally, Ann McGill and Teresa Bacola, also retired public 
school teachers, have been special friends for many years.
    Thank you all for being here.
    Particularly in the next few years, the role of Under 
Secretary of the Navy will require a breadth of experience and 
perspective to support many key priorities, including the 
number one asset, our people: sailors, marines, civilians, and 
their families. We must assure they are supported and we 
acknowledge their service and sacrifices through our actions; 
that we maintain operational readiness for today's 
requirements, as well as those into the future, even in an era 
of fiscal uncertainty; that the shipbuilding and industrial 
base are strengthened, supporting a fleet that is affordable 
and sustainable for the long term; that the acquisition process 
is efficient, effective, and maintains the highest level of 
integrity and accountability. Being good stewards of taxpayer 
dollars is particularly critical given the fiscal realities we 
face now and into the future.
    I have had the privilege of serving under and learning from 
both Secretary Gates and Secretary Panetta. The experiences 
from my service in Personnel and Readiness, addressing many 
difficult issues, as well as the opportunities I have had to 
work side by side with senior military and civilian leadership 
in the development of the strategic plan and supporting budgets 
are invaluable. My work as a university president, business 
executive, and board member for numerous nonprofit and for-
profit organizations, along with my educational background, 
provide me with the range of experiences and perspectives 
needed to bring to this role, if confirmed. Along with the 
dedicated team of men and women in the Department of the Navy, 
I am confident that this breadth and depth of experience to 
think strategically, foster innovation, improve effectiveness, 
enhance accountability, and address changes both in the fiscal 
and operational environments will support the priorities of 
people, platforms, power, and partnerships.
    My goal, if confirmed, is to ensure that the decisions made 
and the plans executed over the next few years further support 
the Navy and Marine Corps for missions now and into the future, 
retaining our place as the world's most capable and most 
versatile expeditionary fighting force.
    In closing, I would like to thank all the members of the 
committee for their time and consideration both during this 
hearing and in our previous conversations. If confirmed, I 
pledge to work diligently and give my best efforts to serve the 
men and women and their families who are all part of the 
Department of the Navy.
    I am sure I speak not only for myself but also for many 
others in extending my appreciation and gratitude to all of our 
sailors and marines for their selfless service. We are all so 
very proud of you and cannot thank you and your families enough 
for all of your sacrifices.
    Thank you.
    Chairman Levin. We are going to start with an 8-minute 
round this morning. Let me start with you, Secretary Morin, 
with a question on sequestration.
    Tell us what you expect the impact of sequestration and the 
Secretary's directive to reduce staffing by 20 percent is going 
to have on the organization and staffing of the Office of the 
Director of CAPE.
    Dr. Morin. Mr. Chairman, it is very clear to me that the 
Secretary's direction to make a roughly 20 percent reduction in 
headquarters budgets to include substantial reductions in all 
of the human resource sources that we use to do the 
Department's mission will have an effect on CAPE if we do not 
do a good job of structuring and managing the organization in 
order to apply the incredibly talented staff to the top 
priorities of the Department. As I understand it, the current 
leadership of CAPE has worked with former Secretary Michael 
Donely, who was charged by the Deputy Secretary of Defense with 
leading the Office of the Secretary of Defense staffing review 
to lay out some options.
    I have not been briefed in detail on those options, but I 
will certainly approach that problem, if confirmed, in the same 
way that I have approached the need as Assistant Secretary of 
the Air Force to make some very significant reductions in the 
size of my own organization there by looking at the business 
processes we follow and the practices that we use in order to 
find ways to prioritize and to take out wasted effort. That is 
hard in a smaller organization like CAPE, but I think we can 
make it happen.
    Chairman Levin. We, a few years ago, passed the Weapons 
Systems Acquisition Reform Act, and I am wondering if you are 
familiar with it?
    Dr. Morin. Yes, sir.
    Chairman Levin. Do you know whether it has achieved some 
benefits yet already? It is still fairly young, but can you 
tell us what your knowledge is about that?
    Dr. Morin. Senator, I have seen enormous progress inside 
DOD over the last 4 years. I had the privilege of sitting on 
the Senate floor actually as a number of the debates on the 
Weapons Systems Acquisition Reform Act were taking part. I was 
struck when I arrived in DOD by the degree to which the 
unification of the cost assessment and the program evaluation 
shops into CAPE had made a difference.
    Senator McCain spoke at the outset about the degree to 
which we need the Military Services to be rigorous about cost 
estimates, and I have tracked that data, in fact, with regard 
to the Air Force and have found that over the last 4 years, the 
range between independent cost estimates out of CAPE and the 
Air Force service cost positions coming out of the Air Force 
Cost Analysis Agency have narrowed significantly. It is a 
limited number of observations, so you cannot do a lot of great 
statistics----
    Chairman Levin. I think it would be helpful, when you get 
there, that you write that up for us because we are interested 
in tracking what the impacts of our legislation have been.
    Dr. Morin. Absolutely.
    Chairman Levin. Let me ask you, Mr. Lumpkin, about the 
authorization for the use of military force (AUMF), the 2001 
authorization, and whether you believe that the current legal 
authorities, including that AUMF enabled the Department to 
carry out counterterrorism operations and activities at the 
level that you believe is necessary and appropriate.
    Mr. Lumpkin. Thank you, Mr. Chairman.
    The Department's position is that the AUMF meets the needs 
to be able to do what needs to be done in the ongoing 
counterterrorism efforts.
    Chairman Levin. Is your position the same or is it 
different or do you not have a position?
    Mr. Lumpkin. No, no. I agree with it.
    Chairman Levin. Now, do you share the views of Secretary 
Panetta and Central Intelligence Agency Director John Brennan 
that many of the counterterrorism operations conducted by the 
United States today could better be carried out under title 10 
Department of Defense authorities?
    Mr. Lumpkin. I think that title 10 is the preferred way to 
do things when we can, and I think we should strive to make 
title 10 the principal method of conducting these operations.
    Chairman Levin. Now, earlier this year, the office of 
ASD(SO/LIC) completed a report on authorities used by the 
special operations forces to engage with partner nation 
security forces and said, among other things, that, ``The 
existing patchwork of authorities taken together is inflexible 
and incoherent.'' Do you believe that there are gaps in the 
current engagement authorities?
    Mr. Lumpkin. Mr. Chairman, I think there are probably some 
gaps in seams, and if confirmed, I would look to identify what 
those would be and to work with this committee in order to 
rectify that.
    Chairman Levin. All right. Would you do that promptly, 
please, when you are confirmed?
    Mr. Lumpkin. If confirmed, yes, sir.
    Chairman Levin. Thank you.
    Let me ask you now, Dr. Rooney. What does your 
understanding of the impact that the shutdown is having on the 
Department of the Navy, including the morale of military, 
civilians, and contractors serving there with the department?
    Dr. Rooney. Yes, sir. The impact has been significant in 
all areas, and let me break that down a little bit more. In 
terms of the military and the readiness and, frankly, the 
morale, it is the uncertainty of the ability to have repair 
work done and the work done to support them, the programs that 
support the families, which impacts the readiness directly. 
That uncertainty, along with the cost, is a concern there.
    The civilian workforce. Particularly on top of the budget 
uncertainties, the known caps and furloughs that have occurred, 
we are starting to lose some of the most senior people in the 
Department and also we know that there have been continuing 
challenges to staff up in the areas of experienced acquisition 
people, program managers, medical personnel, and that will 
continue to be exacerbated.
    In terms of the contractor workforce, any work stoppages or 
anything that would slow down the production will go right to 
that industrial base and jeopardize our ability to keep those 
contractors engaged and keep those people employed and moving 
to conclusion of the program.
    Frankly, it is across all three levels, sir.
    Chairman Levin. Thank you.
    Now, Dr. Rooney, your experience as President of Mount Ida 
College and Spalding University and your experience as the 
Principal Deputy Under Secretary of Defense for Personnel and 
Readiness and Acting Under Secretary of Defense for Personnel 
and Readiness give you a unique experience on the issue of 
sexual assaults involving young women and young men in the 
military, as well as in colleges and in universities. Does the 
military have an advantage over colleges and universities in 
preventing and responding to sexual assaults?
    Dr. Rooney. You are correct, sir, and I share everyone's 
concern that sexual assault in the military and elsewhere in 
the colleges and universities is a significant issue.
    The advantage, if you can call it that, that the military 
has is several-fold.
    One, the ability to get data across the Services is an 
opportunity that is unique. Colleges and universities do not 
have that ability to look across every college and university 
and gather that data in a central area. There is the ability to 
get good information going in.
    Also, there is a different structure of command and control 
and oversight that commanders have in military installations 
that, frankly, university presidents, deans of students, and 
others do not have.
    However, I think on the other hand, there are lessons to 
learned from both. I think that while the military is in a 
position to get good information, influence through our command 
structure, there is the opportunity to look out to especially 
colleges and universities and see what they have done in the 
area of alcohol and substance abuse programs, which we know are 
critical factors that often are tied to issues of sexual 
assaults. What programs have worked in those settings to 
educate students, to develop bystander programs, and all of 
these, the military has already incorporated in terms of 
training programs and bystander awareness. But I think that 
ongoing awareness, frankly, can help both sides really go after 
a problem that is very, very significant.
    Chairman Levin. Just to conclude, you made reference to the 
commander. Does the role of the commander give the military and 
should it give the military a special capability of dealing 
with sexual assaults?
    Dr. Rooney. It should for a number of reasons. The 
commander has a number of tools that they can use not just 
judicial but also non-judicial type of punishment and tools. 
The commander is also very responsible and must be held 
accountable for the command climate, what is actually going on, 
what are the attitudes and the behaviors of the people around 
him or her in command. Yes, in fact it does create a 
significant tool and ability to influence.
    Chairman Levin. Thank you very much.
    Senator McCain?
    Senator McCain. Thank you, Mr. Chairman.
    In other words, Dr. Rooney, do you support the commander's 
role in disposing of Uniform Code of Military Justice 
violations, including the case of sexual assault?
    Dr. Rooney. Yes, I believe the commanders do need to be in 
that chain, sir.
    Senator McCain. In your response to written committee 
questions, you said you did not have enough information to say 
whether the Navy will meet its legal obligation to meet the 
financial audit deadlines for 2014 and 2017. What is your 
opinion today?
    Dr. Rooney. I still, sir, do not at this point have the 
detailed information. I know that they have a number----
    Senator McCain. Until you find out, then I will not be 
supporting your nomination. I want an answer whether the Navy 
can meet its legal obligations. If you do not know the answer, 
then you are not qualified for the job yet.
    [The information referred to follows:]

    Dr. Rooney. Based on the Department's currently favorable risk 
assessment of the remaining efforts, today I am cautiously optimistic 
that the Navy will achieve the fiscal year 2014 mandate.A brief summary 
Department of the Navy's progress toward achieving audit readiness on 
its Statement of Budgetary Activity (SBA) by the end of fiscal year 
2014:

        <bullet> The Marine Corps' portion of this statement has been 
        under audit for several annual cycles, and has made great 
        strides towards obtaining a favorable opinion.
        <bullet> In addition to the Marine Corps effort, the Navy has 
        asserted audit readiness on seven SBA-related business areas. 
        These areas include: E-2D Advanced Hawkeye Major Defense 
        Acquisition Program (MDAP), Appropriations Received, Civilian 
        Pay, Transportation of People (TOP), Reimbursable Work Orders 
        (RWO), Military Pay, and Fund Balance with Treasury (FBWT).Of 
        these seven, four (E-2D MDAP, Appropriations Received, Civilian 
        Pay, TOP) received favorable opinions after independent 
        examinations were completed on them.
        <bullet> Exams on two more of these SBA-related areas (RWO, 
        Military Pay) are currently underway, and the Navy expects the 
        third examination (FBWT) to commence soon.
        <bullet> Three remaining business areas (Contract/Vendor Pay, 
        Requisitioning, and Financial Statement Compilation/Reporting) 
        comprising the SBA are on schedule to be asserted in fiscal 
        year 2014.

    Senator McCain. Dr. Rooney, last month, the Government 
Accountability Office (GAO) provided an analysis of the 
personnel strength, and the GAO said the Navy, ``could not 
provide how many civilians it has as of July 2013 because, 
according to Navy officials, there is a problem with its 
information system.'' We are telling the taxpayers we do not 
even know how many civilian employees we have?
    Dr. Rooney. Sir, I am familiar with that GAO report, but 
data I have seen and even the input that the Navy has had into 
the contractor analysis has been significant, and I have not 
seen a direct evidence of their inability to count. But if 
confirmed, I would clearly make sure that that system is in 
place because the human resource and being able to understand 
not only our civilians but our contractors is critical.
    Senator McCain. I think our taxpayers ought to at least 
know how many employees the Department of the Navy has.
    The LCS. The GAO recently criticized the program as being 
over budget, behind schedule, deficient in proven capabilities 
needed by the warfighter. The report concluded--and I quote 
from the GAO--``The apparent disconnect between the LCS 
acquisition strategy and the needs of the end users suggested 
that a pause is needed.'' Do you agree with that conclusion?
    Dr. Rooney. Sir, I am familiar with the recommendations. I 
think that the LCS had several mission-driven platforms to it. 
I know there has been some controversy in it. But I am also 
aware that every Chief of Naval Operations (CNO) since Admiral 
Vernon Clark have supported the program because it provides the 
capability that they need, and chief among that is forward 
presence. However, I also share the concern that the 
acquisition must be based on very stringent requirements going 
forward.
    Senator McCain. I hope you will answer the question, and 
that is, do you believe a pause is needed as recommended by the 
GAO?
    Dr. Rooney. The concern with a pause at that point was any 
gains that have now been achieved, particularly in the 
production with the unit cost--and at this point, that cost 
curve since the GAO report has continued to go down, but if 
that program is slowed down, those efficiencies in the building 
will also suffer and again those costs will go up.
    Senator McCain. Mr. Lumpkin, your response to a request 
from this committee for an assessment of al Qaeda was, ``As the 
President said, the remaining operatives in al Qaeda--we now 
confront a less capable but still lethal threat from 
geographically diversified groups affiliated with al Qaeda.'' 
Do you stand by that statement? ``Less capable''?
    Mr. Lumpkin. I do in the sense of the core al Qaeda in 
itself.
    Senator McCain. I am not asking about core al Qaeda. I have 
heard that dodge a number of times. Do you believe that al 
Qaeda is more capable or less capable today than they were 5 
years ago, whether it is the core or not? I am talking about al 
Qaeda.
    Mr. Lumpkin. I would argue less capable to attack the 
Homeland directly, but U.S. interests--it still has the 
capability to hit U.S. interests abroad.
    Senator McCain. Al Qaeda is gathering strength in the 
ungoverned regions of northern and eastern Syria. The 
Washington Post reports that fewer than 1,000 Syrian rebels 
have been trained. Do you think the training cited by the 
Washington Post is capable of altering any balance of power in 
Syria?
    Mr. Lumpkin. As it sits right now, I do not see a 
significant balance changing based on that.
    Senator McCain. Do you believe that the surge was a success 
in Iraq?
    Mr. Lumpkin. I do believe the surge was successful in Iraq.
    Senator McCain. Did you support it at the time?
    Mr. Lumpkin. I did.
    Senator McCain. On al Qaeda again, is it true that al Qaeda 
in Iraq has now grown into a larger organization called the 
Islamic State of Iraq and al Sham or ISIS, which now enjoys a 
safe haven in the area encompassing parts of Iraq and Syria?
    Mr. Lumpkin. That is my understanding, yes, sir.
    Senator McCain. They operate active terrorist training 
camps in Iraq and Syria?
    Mr. Lumpkin. That is my understanding.
    Senator McCain. Is it correct that the ISIS senior leaders 
are believed to be in Syria?
    Mr. Lumpkin. I do not have an answer to that one, to be 
honest with you, sir.
    Senator McCain. Do you believe that situation might have 
been different if we had left behind a residual force in Iraq 
than it is today?
    Mr. Lumpkin. I think the preference would have been to have 
a residual force, absolutely. As we look as an exit strategy in 
Afghanistan, the benefit of a residual force is absolutely 
there.
    Senator McCain. That is not coming along very well in 
Afghanistan.
    Mr. Lumpkin. There are challenges, yes, sir.
    Senator McCain. Do you think maybe Mr. Karzai is looking at 
what happened in Iraq and what is happening in Syria and what 
is happening all over the Middle East and maybe drawing the 
appropriate lessons from that?
    Mr. Lumpkin. Senator, I cannot speculate to what President 
Karzai is thinking or his motivation.
    Senator McCain. I see.
    You do believe, though, that we should leave a residual 
force behind in Afghanistan?
    Mr. Lumpkin. I do.
    Senator McCain. Do you have an estimate of the size of that 
force that should be left behind?
    Mr. Lumpkin. I do not. I would have to do some analysis, 
and candidly, Senator, I have not dug into that. If confirmed, 
I would be happy to look at that with the rest of the 
Department.
    Senator McCain. Maybe you can look at it before you are 
confirmed.
    [The information referred to follows:]

    Mr. Lumpkin. Our core goal--to defeat al Qaeda and prevent its 
return to Afghanistan and Pakistan--remains unchanged. Over the past 4 
years, due to the dedication and sacrifices of our forces, our 
coalition partners, and the Afghan security forces, I have been 
encouraged by the progress made toward our goal and believe this 
progress can continue beyond 2014.
    The executive branch is reviewing options for the size of our 
contribution to the post-2014 North Atlantic Treaty Organization (NATO) 
mission, as well as a limited U.S. counterterrorism mission, and that 
decision will be based on a number of factors, including:

        <bullet> Conclusion of a U.S.-Afghan Bilateral Security 
        Agreement and the NATO Status of Forces Agreement;
        <bullet> Progress toward our core goal of disrupting, 
        dismantling, and defeating al Qaeda and preventing its return 
        to Afghanistan and Pakistan;
        <bullet> Continued progress and development of the Afghan 
        National Security Force;
        <bullet> A peaceful Afghan political transition centered on the 
        elections in April 2014;
        <bullet> The potential for peace talks between the Afghan 
        Government and the Taliban.

    If confirmed, one of my priorities would be to confer with our 
operational commanders to get their views of the situation at hand. I 
would then work with colleagues to provide my recommendations and 
participate in this review process to help senior leaders continue to 
make informed decisions that protects U.S. interests in Afghanistan and 
the region.

    Senator McCain. I have no more questions, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    Dr. Rooney, could you talk about the issue of readiness in 
the Navy and your perspective as you prepare to assume these 
responsibilities?
    Dr. Rooney. Yes, sir. I believe Admiral Greenert is 
certainly on the record as saying that there is definite 
concern of readiness among the Navy at this point and, 
particularly under the current budget and uncertainty of the 
budget, some risks going forward to the overall readiness. That 
remains a concern. Being able to get equipment repaired on time 
and be able to get people deployed on those ships is a concern 
if it slows down, the training. Training budgets have been 
greatly affected, and frankly at this point, we are sacrificing 
potentially some long-term readiness in order to meet short-
term needs, and that is a grave concern to everyone in the 
Department.
    Senator Reed. Another issue that you will have to face in 
your particular responsibilities, in your managerial 
responsibilities is the shipbuilding program which is related 
to readiness, obviously, but has a longer term typically. With 
respect to shipbuilding, any comments on the decisions you 
might have to make going forward, given the budget constraints?
    Dr. Rooney. Yes, sir, and it is not only the budget 
constraints, but it is also based on some of the historical 
facts and the cost challenges and issues that I know this 
committee has looked at and other committees have looked at and 
raised a concern. It points to the necessity for any of our 
shipbuilding programs to make sure that we have the appropriate 
requirements initially, that we are engaging industry earlier 
on in the process so that we get better cost estimates and 
better cost controls. We build in a process to make sure that 
what is being built is meeting requirements so that, more 
importantly, those requirements continue to meet the needs 
outlined by the warfighters.
    Senator Reed. One of the issues that Senator McCain brought 
up and I think very correctly as the ranking member of the 
Seapower Subcommittee is the Ford carrier program, the 
significant cost increases on the first ship to be built and 
additional cost added in as complications arose. We are on the 
point of negotiating a second ship.
    Can you comment specifically about--and that might be just 
emblematic of the overall challenges, as he alluded to of 
managing better the resources you have. Given a $580-plus 
billion budget, most Americans believe there are ways through 
management that some money can be saved. That is not the silver 
bullet, but I think one of the major things you are going to 
have to do is manage better the resources you have, whatever 
they are.
    Dr. Rooney. I agree, Senator, and if confirmed, will 
certainly do that and definitely build on the lessons from the 
past, particularly in that case of what was learned from that 
first one before any second contract or actually construction 
on a CVN-79 is started.
    Senator Reed. Dr. Morin, recently the Pentagon Inspector 
General (IG) released a report on the F-35 and the construction 
particularly in the Lockheed Martin facility at Fort Worth 
suggesting that the attention to detail necessary and just the 
dedication to the task was not only inadequate but it was 
costing the program millions of dollars in avoidable costs. The 
company indicated that information might be out of date, that 
changes have been made. But one of your key challenges will be 
not just this program but many other programs. But can you 
comment on that report? You had quite a bit of interest, I 
think, on the Budget Committee also.
    Dr. Morin. Yes, sir. I have looked at the Inspector 
General's report in brief, although I have not seen the 
detailed analysis of the contractor and the program office's 
response to it yet. Based on my reading of that report, though, 
it appears that the ISO-9001 quality control processes 2-3 
years ago were deficient. I understand, based on the program 
office's response and DOD's response to the Inspector General's 
analysis, that a great deal of actions have been taken to close 
those specific deficiencies and that the program office is 
using the report as a tool to identify the continued 
deficiencies that need to be closed out, which is exactly what 
I would expect them to be doing. I view IG and GAO reports as a 
tool for the public to have visibility but also a tool for the 
management of the Department to identify problems and rectify 
them.
    Senator Reed. There are many different ways you have deal 
with the issue, and it goes to some of the questions I raised 
with Dr. Rooney.
    But two are having contracts in which the contractor has 
skin in the game, as well as the Government--and I think we are 
moving that way from a cost-plus to cost-share--and also 
provisions in the contract where there are, indeed, penalties 
if good practice is not adhered to.
    The other aspect is having the people who monitor these 
contracts, DOD personnel or contractors, but hopefully DOD 
personnel, who really on a day-to-day basis are there with 
their feet on the ground making sure that everyone is working 
hard.
    Do you have any comments on those two dimensions?
    Dr. Morin. Absolutely, Senator. I will start by noting just 
given recent experience that furloughing all of those personnel 
does not contribute to a mission accomplishment, and that it is 
unfortunate that we were in that position. It will set back 
numerous programs.
    There has been a great deal of effort over the last 4 years 
by both Under Secretary Hale and former Under Secretary, now 
Deputy Secretary Carter and Under Secretary Kendall in working 
their two respective parts of the acquisition process, contract 
audit and contract management, to ensure that we are providing 
better incentives and that we are holding people to account. 
Those workforces have grown as part of the acquisition 
improvement efforts, although, of course, with the Department-
wide reductions in staffing, a lot of planned growth is now not 
going to occur.
    But I have seen what I think is real improvement in the 
Department's acquisition performance over the last 4 years, 
some of which is clearly attributable to the Weapons Systems 
Acquisition Reform Act and some of which I believe is 
attributable to an aggressive management effort. But it is 
clear there is much more work to be done.
    Senator Reed. Thank you.
    Mr. Lumpkin, first, thank you for your dedicated service in 
the U.S. Navy to the Nation.
    Mr. Lumpkin. Thank you.
    Senator Reed. Thank you very much.
    U.S. Special Operations Command (SOCOM) is scheduled to 
increase its force structure of about 65,000 to 71,000 because 
of the enhanced missions and, indeed, the worldwide global 
missions that you are going to undertake. Do you see any 
obstacles to achieving that force level and maintaining the 
extraordinary quality of the force?
    Mr. Lumpkin. Thank you, Senator. Actually I do. One of our 
challenges, of course, is the Quadrennial Defense Review (QDR) 
in 2006. What it did is basically scoped the size of the 
operational force, and it saw a glide slope of growth. The QDR 
2010 showed that there are enabling requirements of those 
forces of intelligence, surveillance, and reconnaissance and 
things to support the force. Sequester is putting some of those 
gains the program of the QDRs in jeopardy to achieve the growth 
of the force the way we had originally programmed in those two 
QDRs.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Ayotte?
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank all of you for being here today.
    Dr. Rooney, I want to congratulate you on your nomination 
for this position. You and I have had a chance to meet 
previously when you came to New Hampshire and was able to learn 
about our deployment cycle support program and what we are 
doing in New Hampshire to help those who are returning from the 
war and particularly our Guard and Reserve members who go back 
to a civilian type setting. I wanted to get your impression of 
whether that is a program that, given your new position, you 
would take some of those experiences as a model of what we 
might be able to do in other States.
    Dr. Rooney. Senator, thank you. The short answer on that is 
yes for a number of reasons. First of all, it is critical that 
the programs that we put in place and whether those are 
personnel programs or acquisition programs, that we have some 
accountability and measures and we use those things that are 
working. Anytime that there is a working model that we can show 
has effective results, that is not only good for the 
individuals but, frankly, it gets us to the point of use of 
resources. We have to be very critical when we have programs in 
place that we cannot have outcomes. To use the models such as 
the one there--and I thank you for that time in New Hampshire.
    Senator Ayotte. I thank you.
    Dr. Rooney. I learned a great deal, and it is exactly that 
type of thing. If confirmed, one of the key areas that I will 
spend time on is looking even outside of the Department to the 
industries. I have worked in the financial industry, health 
care, education--and see if there are some models for both 
people, as well as acquisitions, that we could use those best 
practices.
    Senator Ayotte. Great.
    Also now in the position that you are nominated for, one of 
the important roles you have in the Navy is maintaining our 
attack submarine fleet. Of course, the Portsmouth Naval 
Shipyard plays a key role as one of our four public shipyards 
in doing that.
    Senator Shaheen and I, who both serve on the committee, 
obviously feel very strongly about particularly the workforce 
at the shipyard, the skills they have, the apprenticeship 
program we have in place. I am very worried about the impact 
that the furloughs have had on the civilian workforce, and 
obviously the uncertainty because of the Government shutdown. I 
look forward to working with you to maintain that tremendous 
workforce.
    I am going to invite you to come to New Hampshire again, on 
behalf of Senator Shaheen and I, to come to the Portsmouth 
Naval Shipyard to see the excellent work. Oh, I forgot Senator 
King. How could I forget Senator King? It is technically in 
Maine. [Laughter.]
    Yes. Most importantly, I see Senator King here, and I know 
how much pride he takes in the Portsmouth Naval Shipyard, too. 
We would love to have you come up--jointly the three of us on 
the committee and I am sure Senator Collins would as well with 
the years spent on this committee--to our shipyard. That is the 
invitation that I am extending in your new role to come to New 
Hampshire again and then see the work that is being done here 
by a very talented workforce.
    Dr. Rooney. Thank you, Senator. If confirmed, I will 
certainly take all of you up on that and do share personally, 
but also I know the Department shares the concern about losing 
the key civilians, losing the expertise. It is not easy then, 
if you do lose it, to try to gain that back. In the period of 
uncertainty we are now, that remains a very, very critical, 
critical concern going forward.
    Senator Ayotte. Great. Thank you, Dr. Rooney.
    Mr. Lumpkin, let me just say thank you so much for your 
distinguished service to our country.
    I want to commend the Special Forces and the Intelligence 
Community and the administration for the recent capture of al-
Libi. That was tremendous work, obviously important raids that 
were recently done in Somalia and Libya. How important is the 
capture of someone like al-Libi with regard to our fight 
against al Qaeda? Is he a pretty significant player?
    Mr. Lumpkin. He is, and we will know more as the 
intelligence is gathered after his capture and we will find out 
how significant he really was and has been.
    Senator Ayotte. We certainly know that he has had prior 
associations with Osama bin Laden and also with al Zawahiri. Is 
that right?
    Mr. Lumpkin. That is my understanding, yes.
    Senator Ayotte. In terms of the intelligence gathering, how 
important is it that we have the opportunity to gather 
intelligence from someone like al-Libi to find out what 
knowledge he has about al Qaeda and obviously any of the 
associates or members of al Qaeda?
    Mr. Lumpkin. I think it is absolutely crucial. Whenever we 
can capture somebody of that stature, the intelligence we can 
and will gain is significant that can lead to future operations 
that ultimately save American lives.
    Senator Ayotte. Let's assume we do not know, obviously, 
what this individual knows, but given his, as I understand it, 
decades of involvement in al Qaeda, that it is important in 
terms of the interrogation. Do you think that we should put a 
timeline on that interrogation?
    Mr. Lumpkin. I am always hesitant on timelines.
    Senator Ayotte. Why is that?
    Mr. Lumpkin. Because as things flow, you do not know 
necessarily what you are going to get and you do not want to be 
up against a clock. Candidly, in my current capacity at the 
Department, I was not involved in the planning or have not been 
debriefed on the operations that happened over the past 
weekend. On these particular operations, I can provide no 
granularity or fidelity. I am sorry.
    Senator Ayotte. But in terms of a timeline, you would agree 
with me that it is best to take as much time as you need to 
interrogate someone that may have valuable information to shed 
light on al Qaeda and perhaps prevent future attacks.
    Mr. Lumpkin. From an operational standpoint, that is the 
preferred methodology, yes.
    Senator Ayotte. I thank you very much, and I appreciate the 
question that Senator Reed asked about the impact on SOCOM of 
sequester. Obviously, I think the role of SOCOM has become even 
more important. I look forward to working with you in your new 
position.
    I would also like to ask Secretary Morin where are we on 
the audit with regard to the Air Force and how do you see us 
meeting those timelines for a statement of budgetary resources 
and then moving forward from there?
    Dr. Morin. Senator, the Air Force is continuing to press 
forward aggressively on the 2014 and 2017 audit readiness 
timelines. Candidly we lost progress last year due to a 6-month 
contract protest that took our independent public accountant 
(IPA) advisors out of work. So that was unfortunately timed, 
and we have resolved it now. We have a contract awarded and 
IPAs, public accountants, on site helping us with certain 
tasks.
    We have made some continued progress in identifying the 
actions we need to take in the near term with our existing 
legacy information technology (IT) systems, our legacy 
financial systems in order to give ourselves the best chance at 
meeting that 2014 deadline. As I have testified to this 
committee and subcommittees before, that is not a sustainable 
long-term approach, and we will not have our objective future 
financial systems fully fielded by the 2014 deadline. There is 
some risk in the 2014 deadline. Pressing aggressively on the 
2014 deadline for the budgetary resources, though, has helped 
us significantly reduce the risk on that 2017 deadline for full 
audit readiness.
    Senator Ayotte. I know my time is up, but would you agree 
with me that this is a very important thing for us to get done?
    Dr. Morin. Absolutely. It has been certainly a core focus 
area of mine over the last 4 years and the Department as a 
whole. Secretary Panetta, during his tenure, put just enormous 
attention on this issue based, in part, on the feedback he 
received from members of this committee about how crucial it 
was. We saw really significant progress that is now continuing 
under Secretary Hagel's leadership. The American taxpayer has a 
right to expect that the Department will be good stewards of 
the taxpayer resources, that we will get the most combat 
capability out of each dollar. Part of giving them that 
confidence is getting to audit readiness and getting to that 
clean audit opinion. It is an enormous enterprise and it is a 
challenging undertaking, but it is crucial.
    Senator Ayotte. I want to thank all of you. I appreciate 
it.
    Chairman Levin. Senator Nelson?
    Senator Nelson. First of all, thanks to all of you for your 
public service.
    Dr. Rooney, please pay attention as you look at the issue 
of sexual assault, that it is not just an issue for DOD with 
regard to the military, but also in the contractors. This 
Senator had found, back during the Iraq War, quite a few 
examples of sexual assault among contractors of where nothing 
was done. The most recent examples we have seen in the actual 
Active Duty military personnel, but there were a number of 
issues when I chaired a hearing on this back in the Iraq War 
where it was completely swept under the rug with regard to 
contractors.
    Now, I think we, as a result of that, got the U.S. 
attorneys sensitized to this so that they would start their 
investigations and prosecutions. But since the contractors were 
basically overseen by DOD, this problem surfaced first there 
and then we see it later in all of the discussion. Please keep 
that in mind.
    Mr. Lumpkin, the attention rightly is being given to the 
Special Operations Forces, as it should be, as we meet the new 
threat of a new type of enemy. What is the relationship that 
you will have in your position as a civilian in DOD with our 
Special Operations Forces and Admiral McRaven in the SOCOM?
    Mr. Lumpkin. Thank you, Senator.
    The relationship between the ASD(SO/LIC) and the Commander 
of SOCOM--it is a civilian oversight and it is a Service 
Secretary-like relationship, and this is overseeing the 
operations and budgetary and acquisition programs within SOCOM.
    Senator Nelson. That is pretty key, and of course, it is 
going to be these kind of raids that we are going to hear in 
the future as we are meeting this new kind of enemy and we have 
to find them. Of necessity, that is going to be the special 
operations working with their counterparts in some of the 
civilian agencies.
    Mr. Lumpkin. Yes, sir.
    Senator Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    I thank each of you for your service in both civilian and 
military roles and your willingness and your families' 
willingness to take on this new responsibility.
    Let me begin, Dr. Morin--by the way, I understand your wife 
is a native of Connecticut which, for me as for the chairman, 
is more than ample reason to support your confirmation.
    Chairman Levin. You have two votes so far. [Laughter.]
    Senator Blumenthal. Well, I would vote to confirm your 
wife, not you necessarily. [Laughter.]
    I want to thank her for her service in Ethiopia as well.
    I am sure you are familiar with the M-17 helicopters that 
the U.S. taxpayers are funding to buy from Russia. 
Rosoboronexport is selling those helicopters to Afghanistan for 
purchases with U.S. funds. DOD, evidently, is continuing with 
the policy of making use of the exception that we made in the 
last National Defense Authorization Act (NDAA) for the purchase 
of those helicopters. I strongly disagree that those purchases 
should continue. I think they should stop. The Afghans cannot 
use them because they do not have people trained to fly them or 
to maintain them, and if we buy helicopters for the Afghanistan 
Army, they should be U.S. helicopters.
    Could you give me an update on the review, and would you 
agree and can you commit that you will undertake a review of 
those purchases before they are made?
    Dr. Morin. Senator, if I am confirmed in the position, I 
will certainly look forward to working with my teammates in the 
acquisition enterprise and the policy community that have come 
to the judgments about that program so far to ensure you get 
full answers to any questions on it.
    Senator Blumenthal. I would like to press you a little bit. 
I would like to know that you will undertake a review of those 
purchases and come back to the committee and to me with your 
view as to whether or not they are, in fact, justified under 
that national security exception.
    Dr. Morin. Sir, I can personally take a look at it. I think 
the legal judgments on the national security exception are not 
typically made in the cost assessment and program evaluation 
sphere, but I am happy to make a commitment to you to look at 
it. I will be, of course, relying on others in the Department 
with the specific expertise on the policies, though.
    Senator Blumenthal. Thank you.
    Dr. Rooney, I have been informed that as of this morning, 
Naval Superintendent Vice Admiral Mike Miller has referred for 
general court martial two of the three midshipmen who have been 
potentially charged with sexual assault or other improper 
activities in connection with the alleged wrongdoing involving 
Midshipman Bush, the assault on her that has been alleged.
    I am sure you are familiar with the process that took 
place, the Article 32 proceeding. As a lawyer and also as 
someone who knows the military system, would you agree with me 
that the current Article 32 procedures really need complete 
revision and change?
    Dr. Rooney. Sir, I would definitely agree with you that the 
Article 32 process needs significant revision in regards to the 
issues for two reasons, both in terms of ensuring that we do 
not discourage future reports or future victims to come forward 
and also to ensure that we maintain that balance between both 
the victim and accused and also the necessary privacy in these 
matters. I absolutely agree that Article 32 does need to be 
reformed.
    Senator Blumenthal. I strongly support an alternative to 
the current command structure, complete responsibility for the 
charging process. I believe it ought to be taken out of the 
command structure and that it ought to be the responsibility of 
a separate trained, experienced prosecutorial office, which is 
contrary to the view that you have expressed here. I respect 
that view, and obviously it has substantial support from other 
members of this committee. The proposal I support has been 
advanced by Senator Gillibrand.
    But is the problem with the current Article 32 process not 
reflective of some of the deficiencies and weaknesses in the 
current system more fundamentally as a whole?
    Dr. Rooney. Sir, I would think that the Article 32 by 
itself is something that can be reformed very quickly.
    In terms of the overall process, I am aware that there has 
been a panel convened to look at independently this entire 
process. I would look forward to seeing what they saw in terms 
of that process, any weaknesses that they identified, as well 
as any strengths, and based on that, then make a very informed 
decision going forward and ensure that as we correct the system 
and as we create greater support and attack this problem quite 
bluntly that we are doing it in a manner that we are aware of 
all of the implications and ramifications. I remain open and 
really would look forward, if confirmed, to that panel report 
and working with this committee to really solve this problem.
    Senator Blumenthal. Working with the committee to solve the 
problem in terms of considering additional measures besides the 
Article 32 reform and perhaps besides the revisions that have 
been suggested so far by the committee in the NDAA?
    Dr. Rooney. Absolutely. I think what we need to do is 
definitely be open to look at what does work, as I mentioned to 
Senator Ayotte, to really step back and see what types of 
measures can we put in place and how can we assure that what is 
changed--that we are able to track that and make sure we are 
getting the results that we need, that there is the 
accountability in there. As a result, yes, I would definitely 
be willing to work with this committee, if confirmed, and find 
a solution.
    Senator Blumenthal. I welcome your willingness to work with 
the committee and your openness to additional ideas. I think 
the more the public understands about the differences between 
the civilian and the military system and the more we 
understand, the more support there will be for ending the kind 
of really abusive and intolerable questioning that took place 
in the Article 32 proceeding involving this midshipman case and 
probably countless other cases where victims of sexual 
assaults, survivors are subject to this kind of interrogation 
without counsel, without support, and without advocacy. I hope 
that you will take a very active interest in the sexual assault 
problem and in encouraging and emboldening additional 
reporting, which is necessary for the kind of data, the full 
and complete and accurate data, that you suggested is very 
important in these cases.
    Thank you, Mr. Chairman. My time has expired.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    To all of you, thank you for your service to the country, 
and to the families, thank you for coming up here today and 
being with your loved one.
    Mr. Lumpkin, in your questions that we had asked you and 
information that you had given us, you talked about SOCOM's 
ability to conduct rapid evaluations of technology and the 
emerging off-the-shelf technologies as well.
    Being from Indiana, I wanted to invite you. In Dr. Rooney's 
continuing travel log going to New Hampshire and Maine--we 
talked about you going to Indiana as well to see Crane Naval 
Warfare Center. Mr. Lumpkin, I think that would be a great spot 
for you to come by to see. The work that is done there is the 
very cutting-edge technology work that SOCOM uses for much of 
the operations. I just wanted to invite you to come by and see 
the place where much of what our fighting force will be using 
is made, is put together, and for you to be able to sit down 
and tell them what else you might need.
    Mr. Lumpkin. Thank you, Senator. In my previous assignment 
within SO/LIC, when I was the Principal Deputy, I did have a 
chance to visit Crane and to see the amazing work that is being 
done there on behalf of the special operations community. You 
have my commitment, if confirmed, that I will make a trip out 
to Crane in short order.
    Senator Donnelly. Thank you very much.
    Dr. Rooney, this year's NDAA will require DOD to provide a 
report outlining the effectiveness of computer-based testing in 
the identification of individuals at risk of suicide. We lost 
more Active Duty young men and women to suicide than in combat 
last year. You have great academic experience. We would value 
your input into this report, and I ask that in the role as 
Under Secretary of the Navy, that you keep an open mind to 
recommendations as to how to turn this around, how to put this 
in a better place, how to have each of our service men and 
women come home safe at the end of their service.
    Dr. Rooney. Sir, if confirmed, I would definitely pledge to 
do that. As you said, it is a problem for which there is no 
single solution, but it is one that we have to continue to work 
and find better ways, obviously, to support our men and women 
because those numbers are not acceptable.
    Senator Donnelly. Doctor, you saw or I presume you saw the 
series of articles in the papers here regarding the pretrial 
testimony of the young midshipman and the incident there. What 
it brings to mind is who would ever report sexual assault 
again, to follow up on my colleague, Senator Blumenthal? Who 
would ever report that that happened to them if they knew that 
kind of treatment awaited them by making that report and trying 
to protect their dignity?
    Dr. Rooney. Sir, you absolutely hit upon the reason why my 
response was, if confirmed--but I know the Department is 
already looking at it--how to in a very short order, reform at 
least Article 32 so that we do not do exactly what you are 
suggesting, which is discourage other people from coming 
forward. The only way that this issue will be changed, we will 
be able to attack this issue, the climate will be changed is in 
fact people come forward, they feel comfortable coming forward, 
they are protected coming forward, and we are able to continue 
to successfully prosecute and hold people accountable for it. 
That is a critical aspect of solving this issue.
    Senator Donnelly. We have taken an extraordinary interest 
in this because it is an extraordinary problem. One of my 
colleagues in past hearings mentioned that if they had a 
daughter, they would not recommend to them at this time that 
they go into the Service. I cannot think of a more damning 
indictment than that. We are going to make this right, work 
nonstop to make this right. I know we have your commitment, if 
you are confirmed, to make sure that that happens as well. 
There have to be significant changes made because for that 
young man or woman--it could be either--to undergo hours and 
hours, whether it was 23, 24, or 25, 30, without their own 
counsel, without their ability to be treated with a certain 
dignity, something is very wrong with the way the process is 
handled now.
    Dr. Rooney. I agree, Senator, and I will reiterate my 
pledge, if confirmed, to work tirelessly on this issue, but 
also work directly with this committee and others, so together 
we are able to move forward and address the many issues 
surrounding this.
    Senator Donnelly. Secretary Morin, the Active versus 
Reserve makeup that we have, the CAPE report, similar things. I 
had mentioned to you in a meeting we had about how they tried 
to close down the A-10 base in Fort Wayne, IN. At a time when 
they were delivering the same services that could be delivered 
by Active Duty, the Reserve was doing it at 28 cents on the 
dollar. We have to look to ways to fund our military better, to 
lessen the pain of sequestration, but we also have to save 
money where we can and where it makes sense.
    I want your commitment that you are going to take a look at 
this and try to make decisions not based on this group or that 
group but where the numbers fall, where it is right for our 
Nation, and where it is right for our fighting force moving 
forward that there be no protection of one group or the other 
in this process, but that we make the decisions that make the 
most sense.
    Dr. Morin. Senator, you have that commitment from me. This 
is exactly the sort of issue where independent, unbiased, 
rigorous analysis is critical. The specific cost factors 
associated with any particular force element depend on a number 
of assumptions about how you are going to use it, when you are 
going to use it, and how intensely you will use it. But it is 
clear, as the Department grapples with significant reductions 
in our top line budget, that we need to optimize across the 
total force.
    Senator Donnelly. Primarily for Dr. Rooney and yourself 
but, Mr. Lumpkin, if you would like to chime in on this too. I 
am getting a little short on time.
    I met recently with some Navy folks who said that within a 
certain number of years looking forward, two-thirds of the 
funds that go to the Navy every year for operations would be 
for personnel costs, health costs, similar things. In effect, 
what you have is a health and personnel plan with a couple of 
ships in the water as well. How do we change that destiny?
    Dr. Rooney. The numbers you cite, based on information that 
I have seen, are accurate, that the personnel costs are quickly 
escalating to the point where they are not sustainable because 
they are, in fact, taking away not only from short-term but 
long-term investments. It comes down to making sure that we are 
understanding what is driving those costs and having the 
difficult decisions based, as you indicated, on analysis, on 
facts, and on an understanding of where we can make adjustments 
in those budgets so that we can have sustainability and having 
those very difficult conversations.
    I had seen that information when I was in Personnel and 
Readiness. It was something that we were tracking very, very 
closely. While our people are our number one asset, it cannot 
be at the expense of a balance in terms of total force and the 
necessary equipment.
    We would have to very closely look at it and, frankly, be 
very open and honest and work with this committee and having 
those discussions about where those levers are that we can 
actually pull and understanding what the ramifications are not 
only in just one budget cycle year, but quite frankly going 
forward.
    Senator Donnelly. Thank you. I am out of time.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    With the understanding, I hope, of my colleagues, just on 
the Article 32 to embellish just for one moment. Would you 
agree, Dr. Rooney, that we have to look at Article 32 in 
addition to the sexual assault victim who is put through a 
wringer on Article 32, but that it is broader than that in 
terms of the way Article 32 is used in general? Would you agree 
with that?
    Dr. Rooney. Yes, sir, I absolutely would. If I implied 
differently----
    Chairman Levin. No, no. You did not. You did not imply 
anything at all. I just think it is important, while we were on 
that subject, anyway, I think it clarifies it.
    Senator Kaine is next.
    Senator Kaine. I have two general questions that I would 
like to ask, and maybe with Dr. Rooney to begin, if you could 
each respond.
    The first deals with planning. My service on the committee, 
though brief, has made me more and more aware that good 
planning is at the core of so much of our military success, 
whether it is planning about a battlefield operation or a 
special operation or planning about a weapons system 
acquisition. I am increasingly disturbed about the budgetary 
uncertainty and how that messes up planning in each of your 
corners of the world and how it takes the planning expertise, 
and instead of having that expertise devoted toward proactive 
missions and responsibilities, the planning expertise kind of 
gets diverted toward, we do not know what the budget will be 
and so we have to run all these scenarios because of the 
uncertainty of the budget operation.
    I would just like you to each talk about how you see the 
budgetary uncertainty, sequester, shutdown, et cetera affecting 
planning functions in your current capacities.
    Dr. Rooney. Sir, I will speak to, if confirmed, the issues 
that I am aware of that Navy would face, and they are several-
fold.
    Senator McCain had asked if I felt that I could state 
emphatically whether in fact Navy would have audit readiness by 
2014, and I said I did not have the information to make that 
determination. Part of that is because with the inability to 
make sure that there is the appropriate hiring to fill those 
slots--and those have been difficult to fill--as you indicated, 
with the uncertainty in budgets and how to make last-minute 
adjustments and not be working towards a strategy but frankly 
moving towards a budget role, moving people off of the 
planning, that has exacerbated that issue.
    In order to do good planning, you have to start with a good 
base whether that is understanding your inventory, whether that 
is understanding your people. As we continue with not only the 
fiscal uncertainty but also the uncertainty with our people and 
being able to allow them that opportunity to sit back and think 
on a time horizon that is longer term with certainty, we are 
going to continue to have an ever-increasing problem with 
planning, not a decreasing problem.
    Dr. Morin. Senator, I would just add that one of the key 
reasons that our DOD is the envy of the world and our military 
establishment is the envy of the world is the really robust 
planning, programming, budgeting, and execution process that we 
use. I have been approached in my job as Air Force Comptroller 
by senior officials from other nations, ministries of defense, 
saying we would love if you would have people come over and 
educate us as to how the Air Force, how DOD does this long-
range plan.
    The Cost Assessment and Program Evaluation organization is 
the keeper of what is called the Future Years Defense Plan, the 
database of the programmatic decisions that the Department is 
making for that 5-year time horizon. I can tell you very 
directly that the rigor and intelligence that needs to be put 
into making those choices sensibly is enormously demanding. The 
process of simultaneously doing that sort of planning at 
multiple budget levels, while you do not know what your 
previous year's jumping off point is--so right now, we are in 
the midst of 2015 to 2019 planning horizon with absolutely no 
idea what we are going to be doing in 2014, if and when we end 
the shutdown and get to start executing 2014--that is 
enormously difficult. I think the instability really puts at 
risk that entire well-articulated, effective set of 
institutions that strive to squeeze that maximum amount of 
combat capability out of each taxpayer dollar. It is doing 
enormous and untold damage to the institution.
    Mr. Lumpkin. Thank you for the question, Senator, because I 
think this one is absolutely key, especially with regard to the 
special operations community. Special operations cannot be 
massed produced. It is not one of those things that you can 
just turn it on and off like a light switch. It takes time and 
there is a significant process that goes into making a special 
operator who tends to be more seasoned, older, more experienced 
than what we see in the general purpose forces.
    The plans that we had developed in QDR 2006, which I had 
mentioned earlier, about growing the force and then those 
enablers that were identified in the 2010 QDR--we are just now 
seeing a lot of those operationally hit into our units that we 
can deploy and use in the future. To shrink and scale that 
back, there is what we call the ``flash to bang''. There is a 
delay to get those people on the front lines. If we retract 
from where we are at right now, it takes a long time to turn it 
back on. The uncertainty causes significant problems with force 
management and overall readiness as we go into the future, 
especially in these uncertain times.
    Senator Kaine. Let me just extend the discussion. I want to 
talk about morale of your people. Last week I was asked and I 
was honored to be asked to give someone the oath of office for 
a promotion in the Air Force from major to colonel. It was an 
exciting thing, but it happened 2 days after the individual had 
been furloughed from his job as a DOD civilian. He was an Air 
Force veteran C-17 pilot but now working as a civilian in the 
Pentagon. He gave a couple of comments with friends and family 
gathered around on a day that should have been a day of just 
unalloyed pride and happiness. It kind of had a worm in the 
apple there because of the furlough.
    He said something that really kind of struck everybody. He 
said we hear a lot of talk about American exceptionalism. I was 
furloughed earlier this year because I am serving my country, 
and there was a sequester, and I have just been furloughed a 
second time because I am serving my country and there is a 
shutdown. I am not feeling that we are that exceptional right 
now. It really struck me as there has to be significant morale 
effects of all this uncertainty, wondering whether the 
political leadership is behind you or not. That has to have a 
short-term morale effect and a long-term as well. Do I want to 
stay and do this? Do I want to keep making the sacrifice?
    Again, maybe starting with Mr. Lumpkin and working back 
across, if you would each explain how you see this affecting 
the folks that you are working with.
    Mr. Lumpkin. I will talk on two different fronts with 
regard to morale. Within the special operations community--we 
will talk about that first--we have some highly energetic men 
and women who want to do great. They want to serve this Nation. 
When they see the uncertainty of the future, they are 
wondering. I cannot speak for everybody, but there is 
apprehension about what does the future hold and what is my 
perceived value.
    Now, if you look in the civilian workforce, which I am 
surrounded by at the Pentagon as well now, the furloughs took 
their toll on morale. The shutdown has even been greater. The 
certainty of what is ahead is not there, of where is this going 
to end and what is it going to look like in the future and 
where do they fit in. I have real concerns about the morale of 
both our Armed Forces and the Federal workers based on the 
current climate.
    Senator Kaine. Mr. Chairman, my time has expired, but could 
the other two witnesses briefly respond?
    Chairman Levin. Sure, please.
    Senator Kaine. Thank you.
    Dr. Morin. Senator Kaine, the impacts have been very 
serious. I spent a couple hours yesterday walking through and 
talking with members of the really impressive staff that 
supports me in my current job as Air Force Comptroller, a staff 
that makes me look good and makes the Air Force very effective 
and efficient. It is a group I rely on enormously, about two-
thirds civilian and a third military.
    Both parts of that community are under enormous strain. 
What we have asked the military folks to do in a time of 
successions of civilian furloughs and the uncertainty we have 
asked our civilians to take on is heartbreaking, and it is 
deeply disruptive. People are holding together well and they 
are pulling together as a team. I saw that now that a large 
portion of our workforce has been recalled, and there were 
actually people in the office. But it has been one blow after 
another, and we are asking a lot of our mid-level supervisors 
to keep their teams focused in the face of all of that.
    Again, it is very hard to quantify the effect that it will 
have. I am sure we will see more retirements of highly valued 
performers. We have seen that across the Air Force already. I 
am sure we will see people seeking greener pastures. The 
American public needs dedicated public servants willing to come 
into Government and put up with some of the unique challenges 
working there for the purpose of the mission. If we keep giving 
them this level of uncertainty, this level of personal pain, we 
may lose them, and we will not know that damage until we have 
seen it and we will deeply regret it then.
    Senator Kaine. Dr. Rooney?
    Dr. Rooney. Sir, it is interesting. I bring a slightly 
different perspective than my two colleagues because I have 
been out of the Department for just over a year. Looking at the 
difference between when I left the Department where people were 
working tirelessly long hours, but as Secretary Morin said, 
some of the best people that make all the senior leadership 
look good, to go back now and see the angst, the uncertainty, 
key people discussing that they think it is time to be able to 
move on because the uncertainty is affecting them not only in 
the work arena but home has been absolutely heartbreaking to 
see. These are critical people.
    If I could just look at the Navy, of the roughly 200,000 
civilians in the Department of the Navy, over half of those 
people are engineers, acquisition specialists, scientists, 
technology. Over 50 percent are veterans. I have heard the same 
thing. Retired colonels, who would be exactly the kind of 
people you want on your team, saying I would go to private 
industry because I just cannot face that uncertainty, really 
creates not only the problem now, but it is a problem that I do 
not think we even will see the results of for years to come, 
and at that point it is going to be virtually impossible 
recover.
    Senator Kaine. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Kaine.
    Now a 100 percent Mainer, Senator King.
    Senator King. I could say that New Hampshire is technically 
a State, but I would not say that. [Laughter.]
    Especially not with Senator Ayotte here.
    I want to associate myself with Senator Kaine's questions. 
I am infuriated that we are in this situation. We are now 
seeing the fruits of--I do not know--25 or 30 years of 
disparaging Government employment, bureaucrats, and that kind 
of talk.
    Senator Levin and I went to the Middle East this summer, 
and people have asked me about my reaction to that trip. There 
are lots of policy reactions, but the most overwhelming 
reaction that I have told my friends of that trip was the 
amazing quality of the young people that we have working for 
this country, whether it is in the Intelligence Community, the 
military, or the State Department. They are wonderful people 
who are idealistic and trying to serve their country, and we 
are treating them shabbily. These are people who have not had a 
raise in 3 years. They have been furloughed. They have now been 
furloughed again.
    It is beyond my comprehension why we are not doing better 
on solving the problems. I mean, the most serious threat to 
national security right now is the U.S. Congress, and it is 
shocking that we cannot do this. I understand maybe some are 
talking about something and we may postpone these deadlines for 
another month or so, but that we cannot do better by our people 
is terrible. I think part of it is this public repeating of 
this disparagement of public servants, and it includes 
teachers, by the way, I mean, some of our most important public 
servants. It is shameful.
    I am sorry. That is not a question because you have all 
answered the question.
    I do, Dr. Rooney, want to follow up. As I understand it, 
one of the big problems with the projection of costs, which is 
moving toward two-thirds being personnel, is health care costs. 
Is that in fact the case?
    Dr. Rooney. Yes, sir, it absolutely is.
    Senator King. That points up the fact that--and there are 
two ways to deal with those health care costs. One is for the 
Government to shift those costs to somebody else. I believe the 
more important role that we have is to try to figure out how to 
lower those costs for everyone, not just for the Government or 
for Social Security or for Medicare, but for the entire 
society.
    I am worried about the shipbuilding program. We have a 30-
year shipbuilding plan supposedly to go to 306 ships, but we 
are not going to make it during much of that 30 years. If we do 
not replace sequestration and get this budget situation in 
order, is that not going to be one of the casualties?
    Dr. Rooney. Yes, sir, absolutely. In fact, I think the CNO 
came in front of this group or Members of Congress and started 
to outline the immediate impacts of shipbuilding that would be 
extended, useful lives of equipment hopefully being extended, 
early decommissioning of potential ships because it just comes 
down to an affordability and choices. Again, any of these 
impacts that we are talking about have, of course, a short-term 
impact, but I do not think we are taking the time to recognize 
the long-term implications of that not only for the immediate 
readiness of our forces and our ability to defend around the 
world, but also from the industrial base and the shipbuilding 
skills necessary to move it forward. He was very clear, I 
believe, in outlining that.
    Senator King. In the State of Maine, we have two naval 
facilities, the Brunswick Naval Shipyard and a civilian 
facility in the Portsmouth Naval Shipyard. I can tell you once 
those welders go somewhere else, you cannot get them back. That 
is not something that you can turn off and on. It is a capacity 
that we are losing, and people are going to look back in 10 
years--Congress is very good at making problems and then 
looking back 10 years later or 5 years later and blaming other 
people for creating the problems. We are going to look back and 
say what happened, why did we not have a ship available to go 
to the Gulf or whatever it was.
    Mr. Lumpkin, to change the subject rather dramatically, I 
think September 11 was the first battle of World War III, and I 
think we are in a fundamentally different military situation 
and you are right in the middle of it. The question I want to 
ask--and it is a question I asked the day before yesterday in 
the Intelligence Committee--is how do we rethink our strategy 
for dealing with worldwide terrorism which seems to be 
spreading and multiplying. We now have groups we never heard of 
a few years ago, al Shabaab and al Nusra and these other groups 
associated with al Qaeda. The strategy of trying to kill these 
people one at a time is like dealing with the Hydra. You cut 
off one head and two grow back.
    Talk to me about a broader strategy for dealing with 
worldwide terrorism because it is going to be with us, and I 
just do not know if we are going to be able to afford to or 
will be able to effectively cut it off by strikes and raids.
    Mr. Lumpkin. Thank you, sir.
    I think you are absolutely correct. We are not going to be 
able to kill our way to victory in the sense of one at a time 
and getting one ``eaches'' work forward. I think the key is, 
through building partner capacity, we need to reduce areas 
where there are security vacuums for groups like al Qaeda or al 
Shabaab to exist and to flourish. I think the key for us, as we 
build our strategy moving forward, is to make sure we focus on 
those security reforms that we can help in other nations 
through building partner capacity to remove the environment 
that fosters such behaviors that al Qaeda has. If confirmed, I 
will do my part to shape that strategy.
    Senator King. The implication of what you just said--part 
of that leads logically to Afghanistan and 10 or 12 years of 
occupation in order to do that. I hope you are not suggesting 
we need to occupy Somalia, Mali, Lebanon, you name it.
    Mr. Lumpkin. No, I am not. I am not advocating nation 
building in a sense. I am talking about building a capacity 
with selected partners who can bring security to where there 
are security vacuums. This is not a one-size-fits-all. Rather, 
it has to be a tailored approach based on the specific region 
and/or country in question.
    If you look at the in securities we had in Colombia back in 
the 1980s and 1990s, it has been a concerted, sustained effort. 
But I would argue that we have made significant progress with 
Colombians as partners to make that a much more stable and 
vibrant economy and allowed more of a secure situation for the 
populace and the people of that area, subsequently reducing the 
flow of narcotics and creating stability within the region.
    Senator King. One of the answers would be to study that 
situation and figure out how to replicate it.
    Mr. Lumpkin. I think it is a good case study to look at.
    Senator King. Dr. Morin, you are in an incredible job 
because I hate to tell you this, but I do not think there is 
going to be a lot more money. Nobody is going to wake up 
tomorrow morning and say, gee, I want to pay more taxes so we 
can spend more money. I hope the sequester is not going to stay 
with us, but certainly limits are going to stay with us. You 
have to be rigorously objective, it seems to me. You are in one 
of the most important jobs in DOD in my view because you are 
going to be dealing with constrained resources from the day you 
walk through the door.
    Dr. Morin. Yes, sir.
    Senator King. There was not a question there.
    But I think acquisition costs--the taxpayers just are not 
going to tolerate it. You did not have the pleasure of Senator 
McCain, I do not think, talking to you about the F-35, but you 
probably will before it is all over and it is not going to be 
fun, I can tell you.
    Thank you very much. Thanks to all of you for your service.
    Chairman Levin. Thank you, Senator King.
    Senator Hagan?
    Senator Hagan. Thank you, Mr. Chairman.
    I echo Senator King's comments and that is, we thank all of 
you for your service. Thank you very much for your past service 
and your current.
    Mr. Lumpkin, I want to build on Senator Nelson's question. 
Title 10 states that the principal duty of the ASD(SO/LIC) is 
the overall supervision, including oversight of policy and 
resources of our special operations activities. In other words, 
the ASD(SO/LIC) is to provide civilian oversight of 
acquisition, budget, and related matters for SOCOM. In recent 
years, these responsibilities have competed with current 
operations for the main attention of the ASD(SO/LIC).
    If confirmed, will you make oversight of SOCOM a top 
priority?
    Mr. Lumpkin. Thank you, Senator.
    Absolutely. Being in SO/LIC when budgets were increasing, 
the opportunity presented itself to focus, I am sure, on 
operations. As we are in this fiscally constrained environment, 
civilian oversight of SOCOM and the major force program 11 
funding line is absolutely key and paramount.
    Senator Hagan. How will you be different than in the past?
    Mr. Lumpkin. I think it is about time. For me this is one 
of those issues, if confirmed, I will put significant time, 
effort, and resources against making sure we can do the proper 
oversight for SOCOM.
    Senator Hagan. Thank you.
    Mr. Lumpkin, again. The Commander of our U.S. Special 
Operations, Admiral McRaven, has publicly highlighted the 
contributions that women have made to our special operations 
missions, including serving as members of the cultural support 
teams, military information support teams, civil military 
support elements, and in other roles. The Department earlier 
this year eliminated its so-called ground combat exclusion 
policy and will open all positions to service by women by 2016, 
unless excepted. The Department continues to study occupational 
standards required of all of our military specialties, and I 
expect this effort will eventually open up thousands of new 
positions to women, possibly including many in special 
operations.
    I also want to note that we just lost one female cultural 
support member who was killed in the improvised explosive 
device attack this past week with the three other 
servicemembers. We certainly have women not only being a part 
of these teams, but certainly giving the ultimate sacrifice as 
part of this effort.
    Mr. Lumpkin, what is your understanding of the current role 
of women in supporting our special operations missions, and if 
confirmed, what criteria would you use in assessing whether our 
special operations units should remain closed to service by 
women?
    Mr. Lumpkin. Thank you for that question.
    Women are ever-present in the special operations community. 
When I commanded a team, I had numerous women who were within 
the structure of that team. I think that the special operations 
community has been very open to having women within its ranks.
    I do know that Admiral McRaven have been charged to do a 
study, and his results are due, I think, by January 2016 on 
where the community is and where the assimilation of women 
throughout the ranks within special operations. If confirmed, I 
will work with Admiral McRaven to make sure that SOCOM does a 
complete and comprehensive study to make the best 
recommendation forward.
    Senator Hagan. The study is not due until January 2016. It 
is another 2-plus years?
    Mr. Lumpkin. My understanding is that that is when the 
recommendations or exclusions need to be submitted. But I can 
take that for you and confirm that date.
    [The information referred to follows:]

    The study on occupational standards is expected to be completed by 
July 2015. As I understand, the goal is to implement the findings by 
January 2016.

    Senator Hagan. It seems like that is a long time for a 
study. Okay. Thank you.
    Dr. Rooney, in the current budgetary environment, there are 
significant pressures facing the broader DOD--of our science 
and technology (S&T) community. There are two significant 
challenges that I am sure you are aware of, given your last 
position. The first is the decreasing ability to recruit and 
retain our best scientists and engineers that obviously are 
being drawn into other competitive and lucrative sectors. The 
second is the decreasing ability to revitalize, much less 
maintain the infrastructure of the DOD's laboratories and our 
warfare centers to the standards being set in academic and 
private sector facilities.
    If confirmed, what would you do specifically working with 
the Assistant Secretaries of the Navy for Research, 
Development, and Acquisition, Manpower and Reserve Affairs, and 
Installations and Environment to really ensure that the Navy's 
S&T enterprise can hire, can retain the best and the brightest 
scientists and engineers to work in a world-class environment 
that allows them to develop the next generation of capabilities 
for our future sailors and marines?
    It really concerns me greatly that our education system is 
not up to the speed it needs to be from a science, technology, 
engineering, and math (STEM) background and a STEM education, 
our K-12 and our universities. We typically lose our girls in 
the middle school going into these engineering and math and 
science programs, but also the fact that there is such a 
competitive environment for these limited numbers of 
individuals. We certainly want to be sure we have the best and 
the brightest within DOD to be sure that we can compete on a 
global basis in this area.
    Dr. Rooney. Senator, I agree that it has been a problem in 
the past. In order to attract, as well as retain, because I 
think this is a two-pronged problem, we have to make sure that 
we have an environment in which these individuals can work, 
that they are supported in their creativity, that they have the 
tools that they need to work on new designs and the 
opportunities to do that, all of the areas of STEM. There have 
been STEM programs within the Department.
    The problem comes in that we are in a competitive 
environment, and frankly the uncertainty of the last few years, 
the budgets, the lack of being able to have raises or have some 
of the tools that are available in private industry are only 
making this challenge even greater. It is very difficult to 
recruit. As I mentioned, over half of the Department of the 
Navy civilians fit in many of the categories you described. It 
is very difficult not only attracting newer and our younger and 
maybe our very creative different thinkers, but retaining when 
we are putting people on furloughs. We have challenges with 
hiring, and we have had little or no raises through the years.
    We cannot compete with private industry, similar concerns 
that, frankly, I faced in higher education where you were 
trying to attract the best of the scientists and medical people 
to be not only researchers but your teachers, and you had to 
provide that level of environment and really show that you not 
only were willing to engage but that you valued the service. I 
think we have some basic foundational work to do in order to be 
an attractive place long-term for these individuals.
    Senator Hagan. Can you give me any recommendations that you 
think you might be sharing with us in the near future I hope?
    Dr. Rooney. I was going to say if confirmed, I absolutely 
will dive deeper into our specific programs, look at the types 
of things, particularly since I have been away from the 
Department for a year, that we have been trying to do, look at 
the data of who have we lost. Have they been our most senior 
people? Have we not recruited? That way we can tailor those 
tools. This is not a case of saying just throw money at it. 
There are specific things.
    Senator Hagan. Do you know what the retention is?
    Dr. Rooney. I do not, Senator, at this point, but if 
confirmed, I would definitely look into it. I started off as an 
engineer in college, and I was encouraged in math and science. 
I know the challenge. I challenge that young woman back there, 
who is the freshman in college, to do the same.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    I would like to direct my questions to the Honorable Jo Ann 
Rooney.
    I understand earlier in your testimony Senator McCain asked 
you your views on sexual assault in the military, and your 
stated opinion was that you would like the decisionmaking about 
whether to go to trial to be done within the chain of command.
    I have looked at your written statement, and I am extremely 
troubled by what you said. The question is, ``In your view what 
would the impact of requiring a judge advocate outside the 
chain of command to determine whether allegations of sexual 
assault should be prosecuted? Your answer is, ``A judge 
advocate outside the chain of command will be looking at a case 
through a different lens than a military commander. I believe 
the impact would be decisions based on evidence rather than the 
interest in preserving good order and discipline. I believe 
this will result in fewer prosecutions and therefore defeat the 
problem that I understand it seeks to address.''
    You are an attorney. Correct? Under what world would you 
recommend the decision about whether a serious crime, meaning a 
conviction could mean more than a year or more, should not be 
based on the evidence?
    Dr. Rooney. That statement meant that someone outside the 
chain of command--and often as an attorney, you are bound by 
the rules of evidence as to whether you will take a case 
forward for any prosecution. A commander also must look at 
evidence, and the implication was not that the commander would 
not, but a commander also has some additional tools that they 
could use that are non-judicial punishment in order to be able 
to address that command climate and change the attitudes 
towards it. That is what that statement----
    Senator Gillibrand. Under our proposed legislation, Article 
15, non-judicial punishment, is retained by all commanders, as 
are all crimes of mission. I am highly concerned that you 
believe there should be any context or that decision should not 
be based solely on evidence about whether you try a case.
    Members of the military still retain civil liberties. They 
still have basic rights of justice, and if you are trying to 
tip the scales in favor of a defendant or in favor of a victim, 
that is also inappropriate. You want cases going forward that 
have evidence that merit a prosecution. You want nothing else 
because if you drive cases forward because you feel like it or 
because you do not like the perpetrator or do not like the 
accused or really like the victim, you are using bias. Bias is 
not effective in making a prosecutorial decision. You should 
have an objective review based only on the evidence because we 
do not want a justice system that favors victims. We do not 
want a justice system that favors defendants. We want an 
objective justice system that provides justice for an accused, 
for a perpetrator who is going to be reviewed fairly and for a 
victim who is looking for a fair shot. You need an objective 
justice system.
    I do not believe that the chain of command should be using 
the threat of prosecution as a cudgel or a tool to manipulate 
or determine how their troops will behave. They have other 
means to do that. They are the ones solely responsible for 
command climate, solely responsible for good order and 
discipline. But that decision point, that legal decision point, 
should be made solely on the basis of evidence.
    Do you believe a commander should base that decision on 
something other than evidence about whether to go to trial for 
a serious crime?
    Dr. Rooney. No, ma'am. As I just said, they must look at 
the evidence, of course. That is key to it. They have legal 
teams around them that can help them understand those. But they 
also have other tools and other ways to impact what is clearly 
an issue that also goes to command climate and also goes to 
changing a culture. We have to be able to hold that commander 
accountable.
    Senator Gillibrand. Those tools remain within the 
commander's purview entirely. That commander is solely 
responsible for good order and discipline. That commander is 
solely responsible for command climate. Those responsibilities 
will never change. What we are urging is that the legal 
decision that requires training, legal training, prosecutorial 
discretion, prosecutorial judgment, and an objective review. A 
review that does not entail knowing the perpetrator and knowing 
the victim, having preconceived notions of whether women should 
be in the armed services, having preconceived notions about 
whether you can serve if you are from the lesbian, gay, 
bisexual, and transgender community.
    Have you reviewed this legislation, this proposed change?
    Dr. Rooney. Yes, I am aware of the legislation, and I am 
also aware of the panel that has been put together to have an 
independent assessment, be able to outline both the challenges 
and the implications going forward. As I mentioned to Senator 
Blumenthal, I would remain very open to the information that 
comes out of that group in order that, if confirmed, I would 
work with this committee and Congress to move forward on a 
sustainable and true solution going forward.
    Senator Gillibrand. When Dick Cheney was the Secretary of 
Defense some 20-odd years ago, he said there was zero tolerance 
for sexual assault in the military. Since that time, there have 
been dozens of reports. Have you reviewed those reports and 
recommendations? Do we really need another report and 
recommendation to finally protect victims within the armed 
services?
    Dr. Rooney. I believe that what that panel's job to do is 
to really take the time now not just to make a report, but to 
outline just so all of us are basing any conversations and 
decisions and best paths forward on an independent assessment. 
It is not, from my understanding, designed to either slow this 
process down or come to a foregone conclusion. That is why 
seeing what that group did and working together on a common 
solution is something, if confirmed, I would be very open to 
doing.
    Senator Gillibrand. I have seen boxes of reports, boxes, 
over 25 years on the same issue.
    Are you familiar with what the Defense Advisory Committee 
on Women in the Services (DACOWITS) panel is?
    Dr. Rooney. Yes, I am.
    Senator Gillibrand. Do you understand that they have just 
issued a report recommending this change?
    Dr. Rooney. Yes, I am.
    Senator Gillibrand. What do you think the value of that 
recommendation is since the sole responsibility of the DACOWITS 
panel is to recommend to Secretary Hagel ideas about how to 
protect and preserve and to maintain a strong armed services 
with regard to women in particular?
    Dr. Rooney. I believe that they have fulfilled their role 
to make that recommendation going forward. I also know that 
based on what I have seen in the history of our military, that 
they have been using the existing command structure and using a 
commander's ability to influence climate and control have been 
very successful in making some very significant changes, 
whether it was integrating the forces on down to the recent 
implementation of the repeal of Don't Ask/Don't Tell. There is 
also support for how that command structure can be part of and, 
frankly, drive significant cultural change.
    Senator Gillibrand. Do you remember what the response was 
from our commanders when we tried to repeal Don't Ask/Don't 
Tell, when we tried to integrate women into the Services, when 
we tried to integrate the Services with African Americans? Do 
you remember what their response was?
    Dr. Rooney. Not word for word.
    Senator Gillibrand. You cannot possibly do this because it 
will undermine good order and discipline.
    Do you know what their response was when we had a hearing 
on sexual assault in the military and we suggested that Article 
60 should be removed, the authority to overturn a jury verdict? 
Do you know what the response was? From the commanders that 
testified, it was you cannot possibly do this because it will 
undermine good order and discipline.
    The day after Secretary Hagel recommends that Article 60 
authority is no longer necessary, the commanders said that is 
fine. It is a vestige of pre-World War I. Of course, we can 
implement that.
    I think this is the same excuse we have heard over and over 
again. To have the DACOWITS panel, who has been investigating 
these issues for 20 years, to make a recommendation to the 
Secretary of Defense that not only should you take the 
decisionmaking for all serious crimes out of the chain of 
command, but you should give that decisionmaking to trained 
military prosecutors as a way to create a more objective system 
so justice is possible is a recommendation I think you should 
take seriously.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Gillibrand.
    We are going to have a brief second round.
    Following up on Senator Gillibrand's questions, you have 
been a university president. Is that correct?
    Dr. Rooney. Yes, sir, I have.
    Chairman Levin. You have had situations where you have had 
sexual assaults and have had to deal with civilian prosecutors 
and what their attitude is towards prosecuting sexual assaults. 
Is that correct?
    Dr. Rooney. Unfortunately, sir, yes, I have.
    Chairman Levin. What has been that experience?
    Dr. Rooney. It has actually been mixed. It has not been an 
unwillingness of prosecutors to take on cases, but if they felt 
they did not have very strong evidence going forward, they were 
unwilling, frankly, to move those forward. I do not mean to 
imply that that is all prosecutors. I am just narrowing that 
down to my experience in two different university settings. It 
really was not a tool we were able to use to actually impact 
what was happening on the campuses.
    Chairman Levin. Because of the reluctance of civilian 
prosecutors in difficult cases to proceed?
    Dr. Rooney. Yes, and for the victims to feel that nothing 
was going to happen at that level. It was not something that 
they used as a way to feel confident that moving forward, 
something would be done. It continues to remain a vexing 
challenge.
    Chairman Levin. In the civilian world?
    Dr. Rooney. Yes, sir.
    Chairman Levin. A commander does not have that same kind of 
reluctance in tough cases. He can proceed or she can proceed 
because it needs to be prosecuted in their judgment. Is that 
correct?
    Dr. Rooney. That is it. If there is not the ability to take 
it forward on a prosecution, again there are other ways to be 
able to make sure that that climate is changed and victims are 
protected and that no tolerance for that type of behavior is 
reinforced. It is the commander's job.
    Chairman Levin. Are you familiar with the decision which 
was made relative to race that we were going to get rid of 
racism in the military? Commanders were ordered and because 
they are commanders and in a chain of command, that they in 
fact implemented finally a policy against racism and prejudice 
in the military with some real success, as a matter of fact. 
Are you familiar with that?
    Dr. Rooney. Yes, sir. In fact, that was one of the examples 
that I mentioned, that as well as the most recent one that I 
have had the most direct experience with.
    Chairman Levin. Are you familiar with the Don't Ask/Don't 
Tell situation where, although we had commanders, in fact, top 
commanders right here, urging us not to do it, that we did it 
anyway, and that they then directed their commanders to 
implement the repeal of Don't Ask/Don't Tell and end 
discrimination against gay people in the military? They have 
done it with real success because of the power of the 
commanders.
    Dr. Rooney. Yes, sir, I am very familiar with that, in 
fact, was very much involved during my tenure in the Department 
with that initiative.
    Chairman Levin. Let me ask Mr. Lumpkin this question. You 
have testified that from an operational point of view, it is 
helpful that an interrogation not have a fixed deadline. In 
your view, is it also important that an interrogation comply 
with the requirements of common article 3 of the Geneva 
Conventions and that the detainee or detainees not be subject 
to cruel, inhuman, or degrading treatment at any time?
    Mr. Lumpkin. Absolutely, sir.
    Chairman Levin. Okay. Senator Kaine?
    Senator Kaine. I have just one question, Mr. Chairman, for 
Mr. Lumpkin.
    Mr. Lumpkin, as we are pursuing a troop drawdown in 
Afghanistan, the special forces have been deeply instrumental 
in training efforts of Afghan security around special 
operations and others. What is your current assessment of 
Afghan readiness and force effectiveness in preparation for 
2014 and beyond?
    Mr. Lumpkin. Significant strides have been made during the 
past decade of building the Afghan capability. We are going to 
make use of the remainder of the known time we have because 
there is always further progress that can be made. I think one 
of the reasons why we would want to keep some sort of force 
there is to continue that partnership to make sure we can 
continue to work with them post-2014, if possible.
    Senator Kaine. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Kaine.
    Senator King?
    Senator King. Dr. Rooney, just another follow-up on this 
question. I find this question of chain of command and sexual 
assault a very difficult one. I have decided to come down on 
the side of not making that change.
    One of the things that convinced me was I want the 
commander to feel responsible for this issue. Is that a 
legitimate way of thinking about this?
    Dr. Rooney. Yes, sir, it absolutely is. I know in 
particular in the Navy, the commander's ability and the result 
of their command and control and command climate is a critical 
piece that is considered for any promotion or any future 
command. That is absolutely true. There are many ways to hold 
that commander accountable. As I said, that is their job.
    Senator King. I am sure you are aware, but in the National 
Defense Authorization Bill that has been reported out of this 
committee, there are numerous changes in the law in regard to 
this problem. The one that is not made is the one that we have 
been discussing about taking the decision out of the chain of 
command, but there are many other changes to strengthen the 
military.
    On the other hand, you are bearing the brunt of this 
because you are here today for the Navy. This is clearly a DOD 
issue. But Senator Gillibrand's point is well taken, that this 
has been a problem for a long time and at some point, this 
committee and Congress is going to say enough is enough and we 
are going to make much more dramatic changes. I hope that as 
you are working with the naval commanders, that you will make 
it clear that this really does require a culture change and it 
has to start right away because time is running out on patience 
for this problem to be resolved.
    Dr. Rooney. Yes, sir. All of our collective patience should 
be challenged on this to get a solution that works and that we 
can prove that works moving forward.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Dr. Rooney, in terms of the experience you 
have had with the Department at large, you have been, as I 
understand it, the Principal Deputy Under Secretary of Defense 
for Personnel and Readiness and the Acting Under Secretary of 
Defense for Personnel and Readiness, I gather at the same time. 
Is that correct?
    Dr. Rooney. Yes, sir, it is.
    Chairman Levin. For how long a period was it?
    Dr. Rooney. The overlap was for a period of----
    Chairman Levin. No, not the overlap, but together how long?
    Dr. Rooney. Oh, together? Just under 2 years.
    Chairman Levin. Dr. Rooney, you were asked a question by 
Senator McCain and you committed to get an answer for the 
record about the audit schedule I believe for the Navy.
    Dr. Rooney. Yes, sir.
    Chairman Levin. Okay, and that was a very important 
question, an appropriate question. If you can promptly get us 
that answer for the record as to whether that audit schedule 
for 2014 and 2017 I believe. You did not know the answer here 
as to whether it is on schedule, but if you could promptly find 
out as much as you can and then give us your opinion the best 
you can as to whether or not it is on schedule and do that for 
the record, it would be very helpful in terms of proceeding 
with this.
    Dr. Rooney. Yes, sir.
    Senator King. That is another area where patience is 
wearing thing.
    Chairman Levin. Where patience has not worn thin this 
morning is Liam. You have really been a big help to your dad 
because you have sat there now for I do not know many hours 
looking interested in every single question that was asked, and 
you have been a big help to your dad. I want to commend you. I 
know how proud your parents are of you and your grandparents 
sitting here are of you. I have six grandchildren, one of whom 
is a boy just about your age. I know he would be just as 
patient and supporting as you have been. I do not want to 
compare it in any way.
    Thank you to all of the people who have come with our 
nominees today. We thank you and I know they thank you for your 
support. We thank our nominees.
    We will stand adjourned and hope we can proceed with these 
nominations very expeditiously. Thank you all.
    [Whereupon, at 11:53 a.m., the committee adjourned.]

    [Prepared questions submitted to Mr. Michael D. Lumpkin by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the special operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
or special operations reform provisions? If so, what areas do you 
believe might be appropriate to address in these modifications?
    Answer. No. The Goldwater-Nichols Act and current special 
operations authorities have served the Department and our Nation well 
and enhanced the Department's capabilities to respond when required. If 
confirmed, I will make proposals for modifications if and when 
required.
                                 duties
    Question. Section 138(b)(4) of title 10, U.S.C., describes the 
duties and roles of the Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict (ASD(SO/LIC)).
    What is your understanding of the duties and functions of the 
ASD(SO/LIC)?
    Answer. The ASD(SO/LIC) is the principal civilian advisor to the 
Secretary of Defense on special operations and low intensity conflict 
matters. The ASD(SO/LIC) has overall supervision (to include oversight 
of policy and resources) of special operations and low-intensity 
conflict activities which encompass policies pertaining to Department 
of Defense special operations' capabilities and authorities, 
counternarcotic efforts and resources, humanitarian assistance and 
disaster relief, strategies for building partner capacity, and 
stability operations in accordance with the Under Secretary of Defense 
for Policy's priorities and guidance.
    Question. What Department of Defense (DOD) activities are currently 
encompassed by the Department's definition of special operations and 
low-intensity conflict?
    Answer. Special operations and low intensity conflict activities, 
as defined section 167 of title 10 U.S.C., include direct action, 
strategic reconnaissance, unconventional warfare, foreign internal 
defense, civil affairs, psychological operations, counterterrorism, 
humanitarian assistance, theater search and rescue, and such other 
activities as may be specified by the President or Secretary of 
Defense.
    Question. If confirmed, what changes, if any, in the duties and 
functions of ASD(SO/LIC) do you expect that the Secretary of Defense 
would prescribe for you?
    Answer. At present, I do not expect the Secretary of Defense would 
make any changes to the duties and functions assigned of ASD(SO/LIC).
    Question. In your view, are the duties set forth in section 
138(b)(4) of title 10, U.S.C., up to date, or should changes be 
considered?
    Answer. Yes, I believe the duties of the ASD(SO/LIC) as prescribed 
in section 138(b)(4) of title 10 continue to remain relevant and 
provide the ASD(SO/LIC) appropriate and clear authority to serve as the 
principal civilian advisor to the Secretary of Defense on special 
operations and low intensity conflict matters. I do not believe any 
changes are needed at this time.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the ASD(SO/LIC)?
    Answer. Not at present, but if confirmed I would make an assessment 
of this and provide recommendations as needed to improve my oversight 
of Special Operations.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe I am uniquely qualified for this position because 
of my broad background in all aspects of the SO/LIC portfolio.
    I have been directly involved in the arena of special operations 
since the 1980's when I began a career as a naval officer and U.S. Navy 
SEAL. During my time on active duty, I served throughout the world in 
places such as Afghanistan, Colombia, El Salvador, the Horn of Africa, 
and Iraq. As a U.S. Navy SEAL, I held every leadership position from 
Platoon Commander to Team Commanding Officer. During my time in 
uniform, I garnered significant experience in counternarcotics, 
counterterrorism, counterinsurgency, and security sector assistance.
    After my military service, in addition to serving in other Federal 
departments, I served as Principal Deputy Assistant Secretary of 
Defense for Special Operations and Low Intensity Conflict and Acting 
ASD(SO/LIC).
    Additionally, I have a strong management background and served in 
the principal leadership positions of Chief Executive Officer and 
Director in the private sector.
                             relationships
    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of Defense.
    Answer. If confirmed, I will perform my duties as the principal 
advisor to the Secretary of Defense on all special operations, 
assisting the Secretary in the development and employment of Special 
Operations Forces (SOF) to achieve U.S. national security objectives. I 
will engage the Secretary on U.S. counterterrorism strategy and 
operations, offer policy guidance and oversight of international 
efforts to combat narcotics trafficking and transnational organized 
crime, and inform the Secretary regarding the Department's support to 
peacekeeping, humanitarian assistance, and stability operations across 
the globe.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I will keep the Deputy Secretary informed as 
well as provide advice and support on current and future special 
operations activities, capabilities, plans, and authorities, ongoing 
and projected counterterrorism efforts and priorities, and the 
development and employment of stability operations, counternarcotic 
programs, and peacekeeping efforts.
    Question. The Under Secretary of Defense for Policy.
    Answer. If confirmed, I will work very closely supporting the Under 
Secretary of Defense for Policy. I will keep the Under Secretary 
informed as well as provide advice and support on current and future 
special operations activities, capabilities, plans, and authorities, 
ongoing and projected counterterrorism efforts and priorities, and the 
development and employment of stability operations, counternarcotics 
programs, and peacekeeping efforts.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. Special operations and intelligence are mutually 
supporting, so, if confirmed, I will continue to foster the close 
working relationship with the Under Secretary of Defense for 
Intelligence.
    Question. The Assistant Secretary of Defense for International 
Security Affairs, the Assistant Secretary of Defense for Asian and 
Pacific Security Affairs, and the Assistant Secretary of Defense for 
Homeland Defense and Americas' Security Affairs.
    Answer. If confirmed, I expect to work closely with the regional 
Assistant Secretaries of Defense in the Office of the Under Secretary 
of Defense for Policy, providing advice regarding special operations 
and stability operations that are ongoing or in the planning stage. We 
would also work together on policies to build partner capacity, 
counternarcotics, and combat global threats. I would also anticipate 
working very closely with the Assistant Secretary of Defense for Global 
Security Affairs on our counterproliferation and cyber policy efforts.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. If confirmed, I plan to maintain a close working 
relationship with the Chairman, the Chiefs, and the Chairman's staff. 
Effective policy and resource oversight of special operations to 
include successful implementation of our counterterrorism strategies 
requires continued close coordination and collaboration with the 
Chairman of the Joint Chiefs of Staff, the Chiefs of Staff, and the 
Chairman's staff.
    Question. The Service Secretaries and Service Chiefs.
    Answer. If confirmed, I will work with the Military Department 
Secretaries and Service Chiefs to ensure that the requirements to 
organize, train, and equip personnel and units that enable or support 
Special Operations Forces are met and maintained. I would also work 
with them to ensure adequate resourcing of Service-common requirements 
and infrastructure for Special Operations Forces.
    Question. The Geographic Combatant Commanders.
    Answer. The geographic combatant commands are at the forefront of 
the global fight against terrorists and violent extremists. They are 
responsible for maintaining a forward posture to deter and dissuade 
adversaries and assure and build the capabilities of our allies. If 
confirmed, I will work closely with the geographic combatant commands 
in all of these areas.
    Question. Commander, U.S. Special Operations Command.
    Answer. The Commander, U.S. Special Operations Command (SOCOM) and 
the ASD(SO/LIC) have a close relationship in defining and meeting the 
needs of our Special Operations Forces. If confirmed, I am committed to 
maximizing that relationship in order to fulfill my responsibilities in 
accordance with the ASD(SO/LIC)'s statutory requirement to oversee the 
policy and resources for special operations activities.
    Question. The Commanders of the Service Special Operations 
Commands.
    Answer. If confirmed, I will work closely with the Service special 
operations commands to ensure they have the policies and resources 
needed to develop and provide the capabilities needed by the Commander, 
SOCOM, and the regional combatant commanders.
    Question. Chief, National Guard Bureau.
    Answer. If confirmed, I will work closely with the Chief, National 
Guard Bureau, to ensure they have the policies and resources needed to 
develop and provide the capabilities supporting the priorities of our 
geographic combatant commands.
    Question. The Director of National Intelligence.
    Answer. As mentioned above, special operations and intelligence are 
mutually supporting. If confirmed, I will work closely to support the 
Director of National Intelligence and his subordinates ensuring both 
parties are appropriately engaged and informed on items of shared 
national security interest.
    Question. The Director of Central Intelligence.
    Answer. Again, special operations and intelligence are mutually 
supporting. If confirmed, I will work closely to support the Director 
of Central Intelligence and his subordinates ensuring close, continuing 
collaboration on items of shared national security interests.
    Question. The Director, National Counter Terrorism Center.
    Answer. SOF activities are central to counterterrorism; the NCTC 
helps ensure coordination of all U.S. Government counterterrorism 
activities. If confirmed, I will maintain ASD(SO/LIC)'s role as the 
primary Office of the Secretary of Defense's interface on SOF and 
counterterrorism matters.
                    major challenges and priorities
    Question. In your view, what are the major challenges confronting 
the ASD(SO/LIC)?
    Answer. With growing fiscal constraints in the Department, it will 
be a challenge to protect our vital defense capabilities. ASD(SO/LIC) 
must continue to ensure SOF has the adequate resources, training, and 
equipment as well as authorities to execute and support U.S. 
counterterrorism strategies as an essential component of our U.S. 
national security policies. As the Department rebalances efforts and 
resources toward the Asia Pacific region coupled with the approaching 
draw down of forces in Afghanistan, ASD(SO/LIC) must continue to shape 
policies and provide expertise on all special operations and Department 
of Defense (DOD) support to peacekeeping, humanitarian assistance and 
stability operations across the globe. Terrorism remains a persistent 
threat to our national security, and while al Qaeda core has been 
degraded, the evolving threat of al Qaeda-affiliated networks endures. 
Many of these terrorist networks that directly threaten American 
interests are not confined to the geographic boundaries of any one 
country; therefore, it is vital that the Department remain focused on 
denying al Qaeda and its affiliate's their transnational safe havens.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work within the Department and the 
interagency to ensure that programs key to effective counter terrorism 
operations are properly supported. While ASD(SO/LIC) will remain the 
focal point for coordinating the Department's strategic 
counterterrorism guidance, I would engage my counterparts across the 
interagency to implement effective programs building our partner's 
capacity and thereby advancing mutual security interests. I will 
balance my effort to ensure the Department remains capable of 
supporting peacekeeping, humanitarian, and stability operations across 
the globe.
    Question. If confirmed, how would you seek to balance 
responsibilities for operational issues within your portfolio with the 
``Service Secretary-like'' responsibilities for Special Operations 
Forces?
    Answer. Balance is very important as we enter into a resource 
constrained environment. Ensuring that our SOF retains their 
qualitative advantage into the future and that they and their families 
are taken care of is a top priority. To achieve this, SOF must be 
properly resourced to include having the best equipment and training 
available, and a well-educated force. If confirmed as ASD(SO/LIC), I 
will make every effort to assert the ASD(SO/LIC) role in the resourcing 
process. This would include participation in SOCOM's Commander's 
Roundtable which is the SOCOM resource decision forum. Through constant 
collaboration with the senior leadership at SOCOM, we would ensure that 
Major Force Program (MFP) 11 funds are used to maintain a strong and 
ready force. I would also work closely with the Services to ensure that 
service common support is identified and provided.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASD(SO/LIC)?
    Answer. If confirmed, my broad priorities would be to ensure our 
Nation continues to have the world's premier special operations 
capabilities to win the current fight against al Qaeda and its 
affiliates, while shaping the force for future operations in a very 
uncertain global security environment. Drivers of success--namely the 
operational readiness of the force, the care of our people, and 
sustainment of resources will be among the key issues I will address.
       civilian oversight of the u.s. special operations command
    Question. The legislation creating the U.S. Special Operations 
Command (SOCOM) assigned extraordinary authority to the commander to 
conduct some of the functions of both a military service and a unified 
combatant command.
    Which civilian officials in the DOD exercise civilian oversight of 
the ``service-like'' authorities of the Commander, SOCOM?
    Answer. Per title 10, U.S.C. Sec. 138 and DOD Directive 5111.10 (in 
accordance with Under Secretary of Defense for Policy priorities and 
guidance), the ASD(SO/LIC) is the principal civilian oversight for all 
special operations activities. Other DOD civilian officials also 
exercise oversight in some capacity:

        <bullet> Under Secretary of Defense for Intelligence (USD(I)) 
        coordinates on intelligence issues
        <bullet> Under Secretary of Defense for Acquisition, 
        Technology, and Logistics (USD(AT&L)) coordinates on 
        acquisition issues
        <bullet> Under Secretary of Defense for Personnel and Readiness 
        (USD(P&R)) coordinates on personnel policies such as SOF-unique 
        incentives and readiness issues
        <bullet> Under Secretary of Defense for Comptroller (USD(C)) 
        coordinates on SOF budget and year-of-execution program issues
        <bullet> Military Department Secretaries coordinate on SOF 
        manpower issues
        <bullet> Director, OSD/Cost Assessment Program Evaluation 
        (CAPE), coordinates on SOF Program development and issues

    Question. In your view, what organizational relationship should 
exist between the ASD(SO/LIC) and the Commander, SOCOM?
    Answer. ASD(SO/LIC) provides civilian oversight of all special 
operations matters as required by title 10, U.S.C. Sec. 138. As such, 
the ASD(SO/LIC) provides Service Secretary-like oversight of special 
operations policy and resource matters and advice to implement 
Secretary of Defense and Under Secretary of Defense for Policy 
priorities. The relationship with the Commander, SOCOM should be 
collaborative and cooperative to develop the best possible special 
operations forces and employ them effectively. Ultimately, the ASD(SO/
LIC) represents the Secretary of Defense and provides recommendations 
regarding special operations that are in the best interest of the 
Department.
    Question. What should be the role of the ASD(SO/LIC) in preparation 
and review of Major Force Program (MFP) 11 and SOCOM's Program 
Objective Memorandum (POM)?
    Answer. The ASD(SO/LIC) provides policy oversight for the 
preparation and justification of the Special Operations Forces' program 
and budget. Ensuring that the SOCOM POM is aligned with national 
priorities and in support of the national defense strategy is key. The 
ASD(SO/LIC) currently attends the SOCOM Commanders' Roundtable--the 
SOCOM resource decision forum--to help ensure the POM is aligned to the 
Department's guidance. During program reviews, the ASD(SO/LIC) works 
closely with the Deputy Secretary of Defense and the Director, CAPE, to 
resolve issues across the Department. If confirmed, I will work closely 
with all parties to ensure our Nation sustains a ready, capable Special 
Operations Force, prepared to meet the fiscal, operational, and global 
challenges we face today and into the future.
    Question. What is the appropriate role of the ASD(SO/LIC) in the 
research and development and procurement functions of SOCOM?
    Answer. The appropriate role of ASD(SO/LIC) is to provide policy 
oversight in resolving special operations acquisition issues. As the 
lead Office of the Secretary of Defense official for SOF acquisition 
matters, the ASD(SO/LIC) represents SOF acquisition interests within 
DOD and before Congress. The responsibilities and relationships between 
the ASD(SO/LIC) and the Commander, SOCOM are defined and described in a 
Memorandum of Agreement between the ASD and Commander, SOCOM. The ASD 
directs and provides policy oversight to technology development 
programs that address priority mission areas to meet other 
departmental, interagency, and international capability needs.
    Question. What is the appropriate role of the ASD(SO/LIC) in the 
operational planning of missions that involve special operations 
forces, whether the supported command is SOCOM, a geographic combatant 
command, or another department or agency of the U.S. Government?
    Answer. The ASD(SO/LIC) serves as the principal advisor to the 
Under Secretary of Defense for Policy and the Secretary of Defense for 
all aspects of employment, deployment, and oversight of special 
operations and counterterrorism capabilities. The ASD(SO/LIC) provides 
policy oversight of SOCOM's mission planning and geographic combatant 
commanders' employment of SOF to ensure compliance with law and DOD 
priorities. The ASD(SO/LIC) coordinates deployment authorities and 
plans involving SOF within DOD and with interagency partners as 
required.
                        impact of sequestration
    Question. The President's budget request and the fiscal year 2014 
spending bills for the Department of Defense considered by Congress to 
date assume an agreement that would avoid sequestration for fiscal year 
2014. In the absence of such an agreement, the Department of Defense 
will face a second year of sequestration and an across-the-board 
reduction of approximately $52 billion.
    What are your views on the impact sequestration is having on the 
readiness of special operations forces and how would those impacts be 
exacerbated if sequestration continues in fiscal year 2014 and beyond?
    Answer. Sequestration has a negative effect on readiness across the 
Department. If confirmed, I will work closely with Congress, the DOD 
Comptroller, and SOCOM to assess the particular impact of sequestration 
on SOF, particularly to ensure we can sustain the right level of 
capability, capacity, and readiness across the Future Years Defense 
Program, aligned to current strategy and available resources.
           special operations command acquisition authorities
    Question. SOCOM is unique within the DOD as the only unified 
command with acquisition authorities and funding. Further, the 
Commander of SOCOM is the only uniformed commander with a subordinate 
senior acquisition executive.
    If confirmed, how would you ensure SOCOM requirements are 
adequately vetted and balanced against available resources before 
moving forward with an acquisition program?
    Answer. The ASD(SO/LIC) is closely involved in all facets of the 
SOCOM Planning, Programming, Budgeting, and Execution system, providing 
oversight of these matters. Other forums used by the ASD(SO/LIC) 
include: the USD(AT&L) Acquisition Review of Department Systems, the 
SOCOM Commanders' Roundtable, the SOCOM Integrated Concept Team 
Reviews, and SOCOM Budget and Acquisition Reviews. Additionally, 
through the annual DOD Program Budget Review process, the ASD(SO/LIC) 
is able to ensure that SOCOM's priorities and resource allocation are 
in alignment with the Department's strategic and policy imperatives.
    Question. What role can SOCOM's development and acquisition 
activities play in broader service and DOD efforts?
    Answer. SOCOM can continue to serve as an incubator for developing 
new equipment and capabilities that initially are for special 
operations-specific needs but often transition to the General Purpose 
Force. Noteworthy is SOCOM's ability to conduct rapid evaluations of 
technology, systems, and concepts of operations, and the ability to 
integrate emerging off-the-shelf technologies.
    Question. If confirmed, how would you ensure that special 
operations capabilities and requirements are integrated into overall 
DOD research, development and acquisition programs?
    Answer. If confirmed, I would continue to support the regularly-
convened SOCOM-led ``Acquisition Summits'' with OSD, drawing together 
SOCOM, USD(AT&L), and the Service Acquisition Executives where all 
elements discuss acquisition issues of common interest.
    Question. If confirmed, how would you ensure sufficient resources 
are dedicated to the development of special operations-unique 
platforms, when required?
    Answer. ASD(SO/LIC) is closely involved and integrated with SOCOM's 
planning, resourcing, and execution. Additionally, the ASD(SO/LIC) 
attends the SOCOM Commanders' Roundtable quarterly meetings, which 
allows the ASD to maintain awareness of matters of concern and import 
to SOCOM and its subordinate commands. Finally, ASD(SO/LIC) 
representatives sit on the SOCOM Special Operations Requirements Board 
to ensure SOF requirements are ready for funding. If confirmed, I will 
advocate for steady and predictable resourcing of SOCOM and oversee the 
investment strategy. If confirmed, I will also provide advice and 
support to the Under Secretary of Defense for Policy as he sits on 
critical resource decisionmaking bodies.
    Question. If confirmed, what metrics will you use to determine the 
effectiveness of SOCOM technology development investments and whether 
SOCOM is investing sufficient resources in these efforts?
    Answer. SOCOM has created a series of technology roadmaps that are 
effective in identifying promising solutions to meet operational 
requirements. These roadmaps have quantifiable metrics (e.g., cost, 
schedule, performance, and technology readiness) embedded in them and 
allow the ASD(SO/LIC) to oversee and monitor progress and identify 
obstacles that may require Department-level involvement.
    Question. If confirmed, how will you ensure that SOCOM has an 
acquisition workforce with the skills, qualifications, and experience 
needed to develop and manage its acquisition and research and 
development programs?
    Answer. If confirmed, I would support SOCOM's efforts to manage the 
SOF acquisition workforce, which is similar to the process used by the 
Service Acquisition Executives. SOCOM's acquisition workforce experts 
are professionally trained and certified, and have substantial 
experience in the SOF-unique processes needed to meet the equipping 
needs of SOF. I would also support SOCOM's efforts with USD(AT&L) to 
expand its organic acquisition workforce, as well as to create a unique 
identifier for SOF acquisition positions.
                special operations personnel management
    Question. Some have argued that the Commander of SOCOM should have 
greater influence on special operations personnel management issues 
including assignment, promotion, compensation, and retention of special 
operations forces. One proposal would modify section 167 of title 10, 
U.S.C., to change the role of the SOCOM Commander from ``monitoring'' 
the readiness of special operations personnel to ``coordinating'' with 
the Services on personnel and manpower management policies that 
directly affect Special Operations Forces.
    What is your view of this proposal?
    Answer. Personnel policies and management are arguably the most 
effective tool for incentivizing characteristics and culture in an 
organization. Currently, Commander, SOCOM, provides input to Service 
personnel policies that effect SOF, but has no direct influence or 
control over the assignment, promotion, or command selection of SOF 
personnel. Changing section 167 of title 10, U.S.C., to reflect the 
word ``coordinating'' rather than ``monitoring'' would give SOCOM more 
influence over Service personnel policies that affect SOF accessions, 
assignments, compensation, promotions, professional development, 
readiness, retention, and training. However, I believe that additional 
coordination and study should be done within the Department to fully 
understand the impact of this proposal.
                   size of special operations forces
    Question. The previous two Quadrennial Defense Reviews (QDR) have 
mandated significant growth in our Special Operations Forces and 
enablers that directly support their operations.
    Do you believe QDR-directed growth in the size of Special 
Operations Forces can and should be maintained in light of current 
fiscal challenges?
    What do you believe would be the impact on the ability of Special 
Operations Forces to meet global requirements if QDR-directed growth is 
not realized? What if special operations end strength is reduced below 
current levels?
    Answer. I believe the uncertain security environment necessitates a 
review of our SOF force structure, balanced against our strategy and 
resources, during each QDR and program review. If confirmed, I will 
work closely with colleagues in DOD and with the SOCOM Commander to 
ensure our Nation has a ready, capable Special Operations Force to 
address current and future threats.
                      special operations missions
    Question. In recent years, Special Operations Forces have taken on 
an expanded role in a number of areas important to countering violent 
extremist organizations, including those related to information and 
military intelligence operations. Some have advocated significant 
changes to SOCOM's title 10 missions to make them better reflect the 
activities Special Operations Forces are carrying out around the world.
    What current missions, if any, do you believe can and should be 
divested by SOCOM, and why?
    Answer. I fully support the 2010 QDR's strategic shift toward 
expanding general purpose forces' capabilities and capacity for 
irregular threats. However, I believe that SOF must maintain a very 
robust capability to train, equip, and advise foreign security forces 
as part of ensuring SOF capability to conduct operations in politically 
sensitive environments, ensuring access for other SOF activities, and 
ensuring the ability to train, equip, and advise either Special 
Operations Forces or irregular forces. At this time, I do not advocate 
significant changes to SOCOM's title 10 missions. If confirmed, I will 
make recommendations of any mission divestitures if and when required.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, what are they and why do you advocate adding 
them?
    Answer. No. If confirmed, I will make recommendations of any 
additional missions for SOF if and when required.
                          combatting terrorism
    Question. The National Strategy for Counterterrorism highlights the 
need to maintain pressure on al Qaeda's core while building the 
capacity of partners to confront mutual threats. The strategy also 
underscores the need to augment efforts to counter threats from al 
Qaeda-linked threats ``that continue to emerge from beyond its core 
safe haven in South Asia.'' The President signed new Policy Guidance on 
Counterterrorism on May 22, 2013, that established a framework 
governing the use of force against terrorists.
    How do you view DOD's role under the National Strategy for 
Counterterrorism?
    Answer. The President's National Strategy for Counterterrorism 
maintains the focus on pressuring al Qaeda's core while emphasizing the 
need to build foreign partnerships and capacity and to strengthen our 
resilience. Overarching goals are to protect the American people, 
Homeland, and interests; disrupt, degrade, dismantle, and defeat al 
Qaeda; prevent terrorists from acquiring or using weapons of mass 
destruction; eliminate safe havens; build enduring counterterrorism 
partnerships; degrade links between al Qaeda and its affiliates and 
adherents; counter al Qaeda's ideology; and deprive terrorists of their 
financial support and other enablers.
    The U.S. Government remains engaged in a multi-departmental, 
multinational effort. DOD continues to undertake activities to support 
this strategy including training, advising, and assisting partner 
security forces; supporting intelligence collection on al Qaeda; 
conducting information operations against al Qaeda; and, when 
appropriate, capturing or killing al Qaeda operatives. However, DOD is 
also committed to enabling its intelligence and law enforcement 
partners, both in the United States and overseas, in their efforts to 
counter this threat.
    Question. What is your understanding of the impact of the 
President's guidance for the use of force in counterterrorism 
operations outside the United States and areas of active hostilities on 
DOD's role within the U.S. Government's counterterrorism strategy?
    Answer. The President's guidance formalizes and strengthens the 
administration's rigorous process for reviewing and approving 
operations to capture or employ lethal force against terrorist targets 
outside the United States and outside areas of active hostilities. By 
establishing a clear set of criteria that must be met before lethal 
action may be taken, the guidance will help focus DOD's planning and 
preparation for these operations. If confirmed, I will make a formal 
assessment of the impact of the new guidance and provide my best advice 
to the Secretary and the President to ensure we're doing everything we 
can to protect our Nation from terrorist attacks.
    Question. Will DOD see its role increase or decrease as a result of 
the President's counterterrorism guidance?
    Answer. The guidance establishes standards and procedures that are 
either already in place or will be transitioned over time. As such, I 
do not anticipate a significant change in the Department's role. If 
confirmed, I intend to ensure we conduct counterterrorism operations 
lawfully, and in accordance with this policy.
    Question. If the role increases, what, if any, are the commensurate 
increases in capabilities or capacities that are required?
    Answer. If there is an increase in our role, if confirmed, I will 
work closely with colleagues to ensure our department has the requisite 
capabilities to execute our counterterrorism responsibilities in 
accordance with the policy.
    Question. Will DOD require any new authorities?
    Answer. At this time, it is my understanding the Department of 
Defense does not require any new authorities to carry out our 
counterterrorism responsibilities.
    Question. Are there steps DOD should take to better coordinate its 
efforts to combat terrorism with those of other Federal departments and 
agencies?
    Answer. I believe the Department of Defense routine coordination 
with other Federal departments and agencies adequately addresses its 
efforts to combat terrorist networks and threats to American interests.
    Question. What do you view as the role of DOD in countering al 
Qaeda and affiliated groups in cyberspace?
    Answer. It is important that DOD retain the resources and expertise 
to counter al Qaeda's propaganda and recruitment efforts in cyberspace, 
in order to effectively complement the State department's primacy of 
communications outside of combat zones.
            the 2001 authorization for use of military force
    Question. What is your understanding of the scope and duration of 
the 2001 Authorization for Use of Military Force (AUMF)?
    Answer. The AUMF was enacted by Congress on September 18, 2001 
(Public Law 107-40), and it provides ``that the President is authorized 
to use all necessary and appropriate force against those nations, 
organizations, or persons he determines planned, authorized, committed, 
or aided the terrorist attacks that occurred on September 11, 2001, or 
harbored such organizations or persons, in order to prevent any future 
acts of international terrorism against the United States by such 
nations, organizations or persons.'' The AUMF remains law; it has not 
been amended or repealed.
    Question. What factors govern Department of Defense determinations 
as to where the use of force is authorized, and against whom, pursuant 
to the AUMF?
    Answer. Outside of Afghanistan, without touching on matters that 
may be classified, I would note that targeting decisions are made based 
on careful, fact-intensive assessments, and review, in order to 
identify those individuals and groups that are appropriately 
targetable. This review continues up the chain of command through the 
four-star combatant commander and to the Secretary of Defense.
    Question. Do you believe that current legal authorities, including 
the AUMF, enable the Department to carry out counterterrorism 
operations and activities at the level that you believe to be necessary 
and appropriate?
    Answer. Yes, I believe that DOD's current legal authorities, 
including the AUMF and the President's constitutional authority as 
Commander in Chief and Chief Executive, are necessary and appropriate.
                     special operations authorities
    Question. Reportedly, the Commander of SOCOM has sought more 
control over the deployment and utilization of Special Operations 
Forces. For example, the Secretary of Defense modified policy guidance 
for the combatant commands earlier this year that gave SOCOM, for the 
first time, responsibility for resourcing, organizing, and providing 
guidance to the Theater Special Operations Commands of the geographic 
combatant commanders (GCC) and Special Operations Forces assigned to 
them. It has been reported that the Commander of SOCOM is also seeking 
new authorities that would allow him to more rapidly move special 
operations forces between geographic combatant commands.
    Please provide your assessment of whether such changes are 
appropriate and can be made without conflicting with civilian control 
of the military, infringing upon authorities provided to the geographic 
combatant commanders, or raising concerns with the State Department.
    Answer. On February 11, 2013, the Secretary of Defense approved an 
update to the Forces For Unified Commands Memorandum for Fiscal Year 
2013 that assigns all Special Operations Forces to Commander, SOCOM. 
This improved command relationship gives Commander, SOCOM, the 
flexibility to meet geographic combatant commander requirements with 
sustained, persistent SOF capabilities and capacities more effectively 
in order to accomplish regional objectives in support of national 
strategic end states. GCCs continue to exercise operational control of 
Special Operations Forces once deployed into a GCC area of 
responsibility.
                        intelligence operations
    Question. In your view, how are intelligence operations carried out 
by special operations personnel different from those carried out by 
others in the Intelligence Community?
    Answer. In my view, SOF intelligence operations are complementary 
and mutually supporting to those carried out by the Intelligence 
Community (IC). These operations comply with the policies and 
regulations guiding DOD and interagency activities.
    Question. If confirmed, how would you ensure intelligence 
activities carried out by Special Operations Forces are coordinated 
adequately with other activities carried out by those in the 
Intelligence Community?
    Answer. I believe that interagency collaboration is the most 
important contributing factor to many of SOF's achievements. If 
confirmed, I will oversee, maintain, and build upon the important 
relationships SOCOM has developed with the Federal intelligence and law 
enforcement agencies.
    Question. What is your understanding and assessment of the 
authorities and agreements which are in place to allow U.S. military 
personnel to carry out missions under the authorities contained in 
title 50, U.S.C.?
    Answer. The Secretary of Defense has authority under title 10 and 
title 50, U.S.C. to conduct operations vital to our national defense. 
DOD activities conducted under title 50 support intelligence collection 
for the Department as well as for the Nation. U.S. military personnel 
are employed across the spectrum of tactical to strategic operations in 
support of these requirements.
                         information operations
    Question. The Government Accountability Office reports that DOD has 
``spent hundreds of millions of dollars each year'' to support its 
information operations outreach activities. Many of these programs are 
in support of operations in Afghanistan, but Military Information 
Support Teams (MISTs) from SOCOM also deploy to U.S. embassies in 
countries of particular interest around the globe to bolster the 
efforts of the Department of State and the U.S. Agency for 
International Development. Further, the geographic combatant commands 
are increasingly moving into this operational space.
    What are your views on DOD's military information support 
operations and influence programs and their integration into overall 
U.S. foreign policy objectives?
    Answer. I believe the Department of Defense must be able to 
influence foreign audiences in environments susceptible to the messages 
of U.S. adversaries. Military Information Support Teams (MIST) are 
trained in developing culturally appropriate messages to counter 
hostile information and propaganda, as well as assisting with building 
the capacity of partner nations to conduct these activities themselves.
    Question. What is the role of DOD versus the Intelligence Community 
and the State Department?
    Answer. The Department of Defense, like all Departments and 
agencies of the executive branch, takes its lead from the President, 
and relies heavily on the Department of State, in re-enforcing the 
Nation's message. I understand that Department of Defense influence 
activities, including those conducted by MISTs, are coordinated closely 
with the Embassies in the areas where they operate, both inside and 
outside of areas of conflict, and at times can support common efforts 
of other agencies. Chiefs of Mission must concur on all MIST 
deployments. MIST activities are fully coordinated with the U.S. 
country team to ensure message consistency and maintain State 
Department leadership in presenting the face of the U.S. overseas.
    Question. How do you believe the success of these programs should 
be measured, especially in light of the constrained budget environment?
    Answer. I understand the Department has taken significant steps to 
address congressional concerns related to policy oversight, budgeting, 
and effectiveness of information support operations and influence 
programs. These programs remain a special interest item for Congress, 
and as such must continue to be carefully managed and overseen. If 
confirmed, I intend to continue to be responsive to Congress on this 
matter, as well as to continue the Department's efforts to improve 
coordination of our information activities across the interagency.
                        civil affairs operations
    Question. Civil Affairs activities carried out by U.S. Special 
Operations Forces in partnership with host nation personnel play an 
important role in developing infrastructure, supporting good governance 
and civil societies, and providing humanitarian assistance, including 
medical and veterinary services to needy populations.
    In your view, does SOCOM have sufficient personnel and resources to 
conduct the range of Civil Affairs missions required for today's 
operations?
    Answer. If confirmed, I will review the Civil Affairs (CA) force 
structure and work with the Joint Staff, the Services, and the 
combatant commands to determine any shortfalls and how best to address 
them.
    Question. Civil Affairs activities are most effective when 
coordinated with other U.S. Government efforts, most notably those 
carried out by U.S. Agency for International Development.
    If confirmed, how would you ensure Civil Affairs activities by 
special operations personnel are integrated into larger U.S. Government 
efforts?
    Answer. If confirmed, I will meet regularly with my interagency 
counterparts in order to harmonize U.S. Government CA efforts as 
required.
    Question. Military Information Support Operations (MISO) can have 
an amplifying effect on Civil Affairs activities by actively promoting 
the efforts of the U.S. military and host nation and by communicating 
truthful messages to counter the spread of violent extremist ideology 
among vulnerable populations.
    If confirmed, how would you ensure Civil Affairs and Military 
Information Support Operations are adequately coordinated to achieve a 
maximum impact?
    Answer. If confirmed, I would support SOCOM in its role as a joint 
proponent over both CA and MISO. This will enable unity of effort and 
the coordinated execution of CA and MISO. CA and MISO force 
representation at the operational and strategic levels will also remain 
critical in achieving a coordinated impact. At the tactical and 
operational level, (e.g. country teams at the U.S. Embassies where CA 
and MISO are working), this is accomplished as a matter of course. CA 
and MISO personnel receive similar training and understand that their 
specialties are mutually supporting.
                        render safe proficiency
    Question. The proliferation of weapons of mass destruction is a 
growing and especially concerning threat to our Nation. Countering this 
threat through actions taken to locate, seize, destroy or capture, 
recover and render such weapons safe is a core activity of SOCOM.
    If confirmed, how would you ensure render-safe capabilities are 
adequately maintained by special operations units who may currently be 
heavily engaged in Afghanistan and elsewhere?
    Answer. The National Strategy for Counterterrorism highlights the 
danger of nuclear terrorism as being the single greatest threat to 
global security. If confirmed, I will work closely with SOCOM and 
Assistant Secretary of Defense for Global Security Affairs on this 
important issue. I will carefully monitor and assess the impact of our 
operational tempo on DOD's render safe capabilities and ensure that 
these capabilities are maintained.
    Question. Do you believe additional render-safe capabilities are 
needed within SOCOM?
    Answer. Not at this time, I believe SOCOM has the capabilities now 
to accomplish its render-safe mission.
                      supported combatant command
    Question. Under certain circumstances and subject to direction by 
the President or Secretary of Defense, SOCOM may operate as a supported 
combatant command.
    In your view, under what circumstances should SOCOM conduct 
operations as a supported combatant command?
    Answer. As authorized by section 167 of title 10, U.S.C., the 
President or the Secretary of Defense may direct SOCOM Commander to 
exercise command of selected special operations missions, which may 
involve highly sensitive targets and circumstances. The Secretary of 
Defense has also designated SOCOM as the supported combatant command 
for planning and synchronizing global operations against terrorist 
networks.
                          training capability
    Question. What capabilities do you consider most important for 
effective training of special operations personnel?
    Answer. The human component of SOCOM is where its strength lies and 
to develop our special operations personnel we must be willing to 
invest the necessary time and resources in advanced, realistic 
training. Specialized individual training, including language 
proficiency and development of technical skills, together with a robust 
joint and international exercise program, is a proven recipe for 
building and sustaining our cutting-edge capabilities. These are best 
achieved through SOF-based authorities, such as the Joint Combined 
Exchange Training programs, as well as other exercise programs 
administered by the Combatant Commands and the Chairman of the Joint 
Chiefs of Staff.
    Question. What improvements are necessary, in your view, to enhance 
training for special operations personnel?
    Answer. Despite steady growth in SOCOM since 2001, operational 
demands continue to stress the force. As we continue to transition in 
Afghanistan, we need to establish a sustainable rotation model for SOF 
that allows for deliberate training cycles for individual and unit 
level training in between operational deployments.
    Question. What are the most significant challenges in achieving 
effective training of special operations personnel?
    Answer. SOF are deployed at an extremely high rate around the 
world. Deploying persistently and for long durations results in 
significant experience for special operations personnel, but in many 
cases a focused mission may result in the atrophy of other skill sets. 
For example, aircrews may conduct repetitive air-land missions on a 
long deployment, but may not conduct a specific airdrop mission due to 
deployment constraints. SOCOM's development of a SOF force generation 
model is intended to ensure there is enough time to train in the 
deployment cycles to maintain proficiency in core SOF capabilities. 
Additionally, since most SOF missions require non-SOF support, time 
must be added to work closely with Service counterparts supporting SOF.
    Question. What, if any, training benefits accrue to U.S. Special 
Operations Forces from training foreign military personnel?
    Answer. SOF gain significant training benefit from training foreign 
personnel. These training benefits include: enhanced language 
proficiency, cultural awareness, real world experience conducting 
foreign internal defense and unconventional warfare. These activities 
help expose SOF to new tactics, techniques, and procedures while also 
encouraging the development of communication and intelligence-sharing 
mechanisms that enable CT operations. Training foreign military units 
helps build trusting relationships and fosters familiarization that in 
return enables our SOF to work in foreign countries with greater 
success and confidence.
    Question. To what extent, in your view, is it appropriate for the 
United States to rely upon contractors for training foreign military 
personnel? What do you see as the primary risks and advantages in such 
contractor training?
    Answer. SOF cannot be replaced by contractors. However, in some 
instances utilizing contractors may make sense and could be a viable 
course of action, particularly if there's a requirement for a certain 
technical skill not resident in our force. For example, there may not 
be a SOF aviator trained on a certain aircraft that is essential to a 
partner nation's mobility fleet. In these cases, a contract solution 
might be the best option to ensure an important mission is still 
conducted. Contractors can also fill a gap in cases when U.S. foreign 
policy restrictions do not permit deployment of U.S. military 
personnel. Contractors can also help provide logistics, administrative 
support, and technical/computer expertise which in turn free special 
operations personnel for more SOF-unique training opportunities and 
operational missions. DOD is obligated to maintain strong oversight 
over contractors, and contractors are not permitted to represent the 
U.S. Government.
              language and cultural awareness capabilities
    Question. Deployed special operations personnel remain heavily 
concentrated in the Central Command theater of operations, including 
many who have been deployed outside of their regional area of 
expertise.
    Are you concerned that the language and cultural skills among 
special operations forces have been degraded because of repeated 
deployments outside their regional area of expertise?
    Answer. Yes. For more than a decade, 80 percent of all SOF 
deployments have been to the U.S. Central Command (CENTCOM) area of 
operations. This has taken a toll on the language, regional expertise, 
and cultural awareness capabilities of those units deployed outside 
their aligned regions. SOCOM has made great strides to correct this 
imbalance, and I expect the trend towards greater regional alignment to 
continue as we move towards a transition in Afghanistan.
    Question. If so and if confirmed, what, if anything, would you do 
to ensure these unique skills are adequately maintained?
    Answer. I support SOCOM's initiative to implement higher 
requirements for language capability as well as to improve the training 
processes for its components. If confirmed, I would seek to continue to 
pursue several key policy issues in close coordination with SOCOM, 
including: native/heritage recruiting, valuing language and regional 
capabilities in selections and promotions, and language testing and 
incentives. I will also strongly encourage the continued alignment of 
SOF with regional areas of focus, consistent with our national 
strategies and aligned to the threat.
     capabilities of special operations and general purpose forces
    Question. The 2010 QDR called for increased counterinsurgency, 
counterterrorism, and security force assistance capabilities within the 
general purpose forces (GPF). The Defense Strategic Guidance (DSG) of 
2011 did not modify this policy. However, the Strategic Capabilities 
and Management Review (SCMR) released this year identifies a range of 
general purpose force reductions that would likely result in little or 
no significant or consistent capability for these missions.
    What is your assessment of the QDR, DSG, and SCMR with regard to 
the mix of responsibilities assigned to general purpose and special 
operations forces, particularly with respect to security force 
assistance and building partner military capabilities?
    Answer. I understand the Services are increasingly improving their 
capabilities to conduct these operations, including the Army's 
development of regionally-aligned forces and the Marine Corps 
deployment of a Special Purpose Marine Air Ground Task Force for Crisis 
Response (MAGTF-CR). In many cases, SOF and the GPF are working side-
by-side to build the military capability and capacities of our partners 
around the world. I expect this trend to continue, despite budget 
cutbacks, given the importance our strategy places on helping our 
partners and allies develop assume greater responsibility for security 
abroad.
    Question. Do you believe that our GPF need to become more like 
Special Operations Forces in mission areas that are critical to 
countering violent extremists?
    Answer. The partnership between general purpose and Special 
Operations Forces is strong. The extensive combat employment of both 
forces in shared battle spaces has increased the need to coordinate our 
operations closely. This has resulted in a sharing of tactics, 
techniques, and procedures between SOF and GPF that has helped to 
increase the Services' capabilities to execute counterinsurgency and 
combating terrorism operations. The Services can continue to complement 
SOF's capabilities by providing those combat enablers that are not 
organic to SOF units or that are not available in adequate quantities. 
These combat enablers, including intelligence and combat service 
support, are vital to the success of SOF, especially in today's complex 
operating environment.
    Question. Are there certain mission areas that should be reserved 
for Special Operations Forces only?
    Answer. Yes. Although the Joint force has evolved significantly 
since 2001, and SOF and GPF are highly interoperable, they are not 
interchangeable. Special operations and low intensity conflict 
activities, as defined in title 10, U.S.C., section 167, include direct 
action, strategic reconnaissance, unconventional warfare, foreign 
internal defense, civil affairs, psychological operations, 
counterterrorism, humanitarian assistance, theater search and rescue, 
and such other activities as may be specified by the President or 
Secretary of Defense. SOCOM focus should remain in these defined areas 
of experience and expertise while integrating Service enablers as 
appropriate.
                special operations enabling capabilities
    Question. While SOCOM maintains organic enabling capabilities to 
support short duration missions, most special operations missions 
require supporting capabilities provided by the Services to be 
successful.
    What do you believe are the greatest shortages in enabling 
capabilities facing Special Operations Forces?
    In your view, how should the responsibility for providing 
supporting capabilities for special operations missions be divided 
between SOCOM and the Services?
    What in your view are the critical supporting capabilities in each 
of the Services that must be preserved to minimize risk to special 
operations missions today and into the future?
    Answer. Shortages of enabling capabilities for SOF are often 
similar to the shortage of high-demand enablers that challenge the rest 
of the deployed forces (e.g., intelligence, explosive ordnance 
disposal, communications, medical, security).
    SOCOM's organic enabling capabilities are those that provide SOF 
the ability to self-sustain for short durations while maintaining the 
agility to deploy forces quickly in support of the combatant 
commanders. Longer-term support of Special Operations Forces, by 
doctrine, and except under special circumstances, becomes the 
responsibility of each Service's theater logistic command and control 
structure and are critical to the success of SOF.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent legislation, authorizes the provision of support 
(including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of this authority?
    Answer. Section 1208 authority has been a very effective tool for 
U.S. Special Operations Forces to leverage and enable willing partners 
to conduct operations to combat terrorism. Combatant commanders 
strongly support 1208 programs. Given the changing global threat 
environment, I anticipate that the need for these programs will 
continue to grow.
                                al qaeda
    Question. What is your assessment of the threat posed by al Qaeda 
and its associated forces to the U.S. Homeland, U.S. interests 
overseas, and western interests more broadly? Which affiliates are of 
most concern?
    Answer. The pressure exerted by the United States and its partners 
has isolated the core of al Qaeda. As the President has said, the 
remaining operatives in the al Qaeda core spend more time thinking 
about their own safety than plotting against us. But we now confront a 
less capable, but still lethal threat from geographically diversified 
groups affiliated with al Qaeda. The most well-known of these groups is 
al Qaeda in the Arabian Peninsula (AQAP), which continues to plot 
against the United States. Increasingly, however, new groups of loosely 
affiliated extremists have also emerged, but the threat they pose to 
the United States is more localized.
    The upheaval in North Africa and the Middle East has contributed to 
a permissive environment for such extremist networks to exploit. Unlike 
the al Qaeda core in Afghanistan and Pakistan, or even AQAP, these 
groups are most focused on the countries and regions where they are 
based. They work together through existing familial and tribal networks 
and focus on acting locally, as we saw in Benghazi and the BP oil 
facility in Algeria attacks. As we strive to work with our partners in 
the region, we see the political changes ushered in by the Arab Spring 
present challenges as well; although many of the governments in the 
region are friendly to our interests, they struggle to exert a monopoly 
of force within their own borders.
                              afghanistan
    Question. What is your assessment of the current situation in 
Afghanistan? What are the weaknesses and shortcomings in the current 
effort to combat terrorism and insurgency in Afghanistan?
    Answer. I am cautiously optimistic that we are going to accomplish 
our objectives in Afghanistan prior to completion of the transition. 
The International Security Assistance Force (ISAF) and its Afghan 
partners have made important security gains over the past 12 years, 
reversing violence trends in much of the country, and beginning the 
process of transition to the Afghan Government. The Afghan National 
Security Forces (ANSF), particularly the Afghan CT Forces such as the 
Afghan SOF and Special Police Units (who fall under the MOI) have been 
integral to this success. These units are demonstrating substantial 
growth in quantity, quality, and operational effectiveness. The Afghan 
Special Operations Forces and it's the Special Police Units have 
demonstrated particular competence, and are well regarded within the 
country.
    We must remain cautious, however, as U.S. and allied forces begin 
to retrograde in 2014. Al Qaeda's safe havens in Northeast Afghanistan 
and the limited capacity of the Afghan Government remain the biggest 
threats to consolidating security gains to enable an enduring, stable 
Afghanistan that can prevent terrorist groups from using these areas to 
launch attacks against the U.S. Homeland. Additionally, the threat of 
attacks against U.S. interests within Afghanistan is likely to increase 
as U.S. and allied direct support to security decreases; this is a 
threat against which our personnel in-country must remain vigilant. 
Nevertheless, this partnered campaign has provided increased security 
and stability for the Afghan population, and the United States 
continues to build upon this success.
    Question. Special Operations Forces in Afghanistan depend on 
general purpose forces for many enabling capabilities, including 
intelligence, surveillance and reconnaissance (ISR); logistics; and 
medical evacuation. Admiral McRaven, Commander of SOCOM, has said ``I 
have no doubt that special operations will be the last to leave 
Afghanistan'' and has predicted that the requirement for Special 
Operations Forces may increase as general purpose forces continue to be 
drawn down.
    If confirmed, how would you ensure adequate enabling capabilities 
for Special Operations Forces as general purpose forces continue to 
draw down in Afghanistan?
    Answer. I have not yet reviewed the mission planning and analysis 
to form a view regarding the appropriate number of U.S., coalition, and 
Afghan troops necessary to fulfill key missions including force 
protection. I do believe that sufficient forces should be provided to 
do the job assigned to them, while protecting themselves. If confirmed, 
I will seek to ensure that all Special Operations Forces are supported 
by sufficient enablers, informed by military advice from the Joint 
Staff and the Commander, CENTCOM.
    Question. In April 2012, the United States and Afghanistan signed a 
Memorandum of Understanding (MOU) on the ``Afghanization'' of direct 
action counterterrorism missions in Afghanistan--reflecting the shared 
intention of having Afghan security forces in the lead in the conduct 
of such operations with U.S. forces in a support role.
    What is the status of efforts to put Afghan Special Operations 
Forces in the lead for such operations and why do you believe such a 
transition is important?
    Answer. In my view, both unilateral and partnered direct actions 
are an essential and highly effective element of our strategy to defeat 
al Qaeda and those that enable it in Afghanistan. Wherever possible, we 
should strive to maintain a reasonable degree of freedom of action 
within our post 2014 force structure that will allow us to achieve our 
objective of preventing terrorists from using Afghanistan as a 
sanctuary from which to attack the U.S. Homeland.
    I understand that Afghanistan's highly-trained Special Operations 
Forces are steadily growing, and that Afghans currently play a key role 
in coordinating and partnering in the vast majority of these 
operations. Of course, direct action operations must continue to be 
conducted with due respect for cultural sensitivities and great care 
for the prevention of civilian casualties. Ultimately, the goal must be 
to ensure that Afghan and international forces have the capabilities 
and authorities necessary to achieve the transition to a post-2014 
structure, while also being mindful of the goal to increase Afghan 
ownership throughout the transition process.
    Question. The Village Stability Operations (VSO) and Afghan Local 
Police (ALP) programs--both U.S. Special Operations missions--have been 
consistently praised by U.S. military leaders as critical elements of 
the counterinsurgency strategy in Afghanistan.
    What are your views on the value of these programs and do you 
believe they should be part of the long-term strategy in Afghanistan 
(i.e. post-2014)?
    Answer. Village Stability Operations (VSO) are a critical component 
of the International Security and Assistance Force's (ISAF) campaign 
plan. VSO uses Afghan and ISAF special operations forces embedded in 
the community full-time to help improve security, governance, and 
development in more remote areas of Afghanistan where the Afghan 
National Security Force and ISAF have a limited presence. I understand 
that, since its inception, VSO has greatly expanded Afghan Government 
influence in key rural areas and has enabled small-scale infrastructure 
development. Across Afghanistan, increasing numbers of local 
communities are requesting to participate in this program.
    The ALP, the armed local security program associated with VSO and 
established by President Karzai, has reportedly expanded to more than 
8,000 members. ALP are empowering local communities and have proven to 
be a significant threat to the Taliban by denying them safe-haven, and 
ultimately creating the conditions for long-term stability.
                                pakistan
    Question. What in your view are the key U.S. strategic interests 
with regard to Pakistan?
    Answer. I believe the United States and Pakistan share common 
interests in long-term regional stability; which includes disrupting, 
dismantling, and defeating al Qaeda, a durable political settlement in 
Afghanistan, and the safety and security of the Indian Ocean.
    The National Strategy for Counterterrorism is clear in stating that 
the United States will only achieve the strategic defeat of al Qaeda 
through a sustained partnership with Pakistan. In my view, the 
military-to-military relationship is an important part of this 
partnership as it facilitates mutually beneficial counterterrorism 
goals. U.S. military assistance to Pakistan has helped the Pakistan 
Military (PAKMIL) achieve success in its counterinsurgency efforts. 
Despite recent setbacks in this relationship, it is important that we 
continue to engage our PAKMIL counterparts to reestablish and rebuild 
the relationship and continue achieving these successes.
    Question. Does the United States have a strategic interest in 
enhancing military-to-military relations with Pakistan? Why or why not?
    Answer. The National Strategy for Counterterrorism is clear in 
stating that the United States will only achieve the strategic defeat 
of al Qaeda through a sustained partnership with Pakistan. U.S. 
military assistance to Pakistan has helped the PAKMIL achieve a level 
success in its counterinsurgency efforts. I support efforts to increase 
military-to-military relations in support of counterterrorism efforts 
with Pakistan, as feasible.
    Question. If so, what steps would you recommend, if confirmed, for 
enhancing the military-to-military relationship between the United 
States and Pakistan?
    Answer. I understand unit-level relationships are strong, and I 
believe we should be making every attempt to ensure that our tactical 
and operational level leaders are able to maintain these ties however 
possible.
    Question. What is your assessment of Pakistan's cooperation with 
the United States in counterterrorism operations against militant 
extremist groups located in Pakistan?
    Answer. The internal domestic counterterrorism concerns of Pakistan 
are significant. I understand our current counterterrorism cooperation 
is good and we continue to improve the level and quality of this 
cooperation.
    Question. In your view, how will the continued availability of safe 
haven for various terrorist organizations within the tribal areas of 
Pakistan impact our long-term strategy in Afghanistan?
    Answer. Terrorist sanctuary in the tribal areas of Pakistan will 
continue to challenge Afghan security. Both unilateral and partnered 
direct actions are an essential and highly effective element of our 
strategy to defeat al Qaeda and those that enable it in Afghanistan, 
particularly in northeastern parts of the country.
    Question. What is your assessment of Pakistan's efforts to counter 
the threat of improvised explosive devices, including efforts to attack 
the network, and go after known precursors and explosive materials?
    Answer. I recognize the actions of the Government of Pakistan to 
ban the export of products utilized in the production of improvised 
explosive devices (IED). The improved border coordination between ISAF, 
Pakistan and Afghanistan and the ongoing discussions on the development 
of a comprehensive border security strategy are encouraging. This is a 
critical area for cooperation that could have had significant impact if 
it results in action.
                                 syria
    Question. What is your assessment of the situation in Syria and its 
impact on the region?
    Answer. Syrian President Bashar al-Asad has lost legitimacy and 
must step aside to enable a political solution that ends the bloodshed, 
and meets the aspirations of the Syrian people. I support working 
closely with allies, partners and multilateral institutions to achieve 
this goal through diplomatic and economic pressure on the Asad regime.
    Hundreds, if not thousands of foreign fighters, predominantly from 
North Africa and Middle Eastern countries, are traveling to Syria to 
support the Syrian insurgency against the Asad regime. However, as 
history demonstrates, relationships and experience gained by these 
fighters could yield benefits for al Qaeda and endanger the stability 
of surrounding countries.
    Question. What is your assessment of Jabhat al Nusra and other 
like-minded groups?
    Answer. Al Qaeda affiliated groups, Jabhat al Nusrah and al Qaeda 
in Iraq, as well as other extremist groups, are a growing problem 
inside Syria as the security vacuum caused by the instability has 
allowed these groups to make modest gains. Jabhat al Nusra has sought 
to portray itself as a part of the legitimate Syrian opposition, while 
also attempting to hijack the aspirations and struggles of the Syrian 
people for its own malicious purposes.
    Question. In your view, what is the most appropriate role for the 
U.S. military in assisting regional friends and allies respond to the 
situation in Syria?
    Answer. The United States is working with our allies to achieve a 
peaceful and orderly political transition in Syria and to end the 
bloodshed as quickly as possible. Our NATO Allies are closely 
monitoring the situation in Syria, especially as the conflict touches 
on NATO's border in Turkey, and like us, are extremely concerned about 
the deteriorating humanitarian conditions on the ground. NATO's 
ultimate task is the protection and defense of NATO members. To that 
end, I support NATO's decision to augment Turkey's air and missile 
defense capabilities in order to defend the population and territory of 
Turkey and contribute to the de-escalation of the crisis along the 
Alliance's border. This includes the recent deployment of NATO Patriot 
batteries to Turkey from the United States, Germany, and Netherlands. I 
understand the administration has also been working with our 
international partners, including NATO Allies, to ensure that the 
appropriate humanitarian assistance is reaching those Syrians in need, 
both inside Syria and in neighboring countries. If confirmed, I would 
support improved coordination and information sharing on al-Nusrah 
Front and foreign extremist flows. I would also continue to work with 
Syria's neighbors, especially Jordan and Israel, to ensure their 
stability during this turbulent time in the region.
    Question. In your view, what--if any--role should the U.S. 
military, including Special Operations Forces, play with respect to the 
situation in Syria?
    Answer. If confirmed, I will ensure that we continue planning for a 
variety of contingencies in order to provide the Secretary and the 
President with options. I will review these plans and, if necessary, I 
will direct additional planning on this and any other potential 
contingencies.
                                  iraq
    Question. What is your assessment of the current threat posed by al 
Qaeda in Iraq? How has the threat changed since the withdrawal of U.S. 
forces from Iraq at the end of 2011?
    Answer. The increased levels of violence in Iraq in recent months 
are disturbing, and are a constant reminder of the formidable 
challenges Iraq continues to face on the security front.
    Over the past 2 years, the operational tempo of al Qaeda in Iraq 
has increased in part due to the destabilizing influence of the crisis 
in Syria. I consider the Government of Iraq an essential partner in a 
common fight against al Qaeda. We have an ongoing dialogue with the 
Government of Iraq to help facilitate its capacity to degrade and 
defeat the al Qaeda network and to neutralize its ability to prey on 
Iraqi citizens of all communities.
    Question. What is your assessment of the capabilities of the Iraqi 
security forces to respond to the threat posed by al Qaeda and other 
security challenges?
    Answer. Iraq no longer needs large numbers of U.S. forces to 
maintain its internal stability. While the Iraqi Security Forces are 
competent at conducting counterterrorism and stability operations, the 
security situation they face is serious and poses a challenge to their 
ultimate success. If confirmed, I would remain committed to working 
with the Iraqi Government to develop its military and security 
abilities and address regional challenges.
    Question. What are the main ``lessons learned'' from Operation 
Iraqi Freedom and Operation New Dawn as they pertain to Special 
Operations Forces?
    Answer. I believe that the United States has learned many lessons 
through its past operations in Iraq and its ongoing operations in 
Afghanistan. Some of these lessons include: the need to maximize 
combined operations with partner forces, the necessity of culturally 
attuned forces, the need for a unified U.S. Government approach, and 
the need for active and integrated interagency coordination.
    Question. What are the lessons learned from the drawdown and post-
combat operations in Iraq that should be applied to the drawdown and 
post-combat operations in Afghanistan?
    Answer. We need to continue our relationships and capacity building 
for the Government of Afghanistan's efforts against al Qaeda to 
succeed. Information sharing, technical assistance, and enabling 
resources will allow our partners to effectively disrupt al Qaeda 
operations, especially external operations against Western interests. 
We have productive engagement across the globe, in many different 
countries that help and support our interest in protecting the Homeland 
and U.S. persons. We should apply all the lessons we are learning to 
our CT threats that will continue to emanate from Afghanistan in the 
future.
              yemen and al qaeda in the arabian peninsula
    Question. What is your assessment of the current threat posed by al 
Qaeda in the Arabian Peninsula (AQAP)?
    Answer. I am very concerned about the threat that AQAP poses to the 
Homeland. AQAP has attempted at least three attacks on the United 
States since December 2009, and in my view fully intends to attack 
again. AQAP has shown some very sophisticated and innovative 
techniques, such as the development of concealed explosive devices and 
printer cartridge bombs. AQAP is also attempting to recruit and 
radicalize would-be terrorists in the West through its extensive media 
outreach.
    Question. What is your assessment of the current U.S. strategy in 
Yemen and what is your understanding of the role of DOD within that 
strategy?
    Answer. The U.S. strategy to disrupt, dismantle, and defeat AQAP is 
a collaborative U.S.-Yemeni effort. I understand the current strategy 
also includes supporting the Yemeni political transition, marshaling 
international economic and humanitarian assistance, and building 
Yemen's counterterrorism capabilities through training and assistance.
    As part of this whole-of-government strategy, DOD continues to 
collaborate extensively with Yemeni forces and remove key AQAP 
leadership and operatives from the battlefield. The Department's 
programs to train, advise, and equip Yemeni forces are also critical to 
long-term efforts against AQAP.
    Question. Given the continuing political instability and slow 
progress of the national dialogue in Yemen, what are your views on the 
United States continuing to provide security training and assistance to 
Yemeni counterterrorism forces?
    Answer. The Yemeni Government has made a number of gains against 
AQAP over the past 2 years, including driving AQAP from some of its 
territory in southern Yemen and enabling operations to capture and kill 
AQAP operatives. However, Yemeni counterterrorism capabilities remain 
limited, and Yemeni security forces will require continued U.S. 
training and assistance to enable them to effectively combat AQAP. This 
assistance has been and will continue to be a part of a comprehensive 
U.S. strategy that includes support for the Yemeni Government's reform 
efforts including the ongoing National Dialogue.
                         somalia and al shabaab
    Question. What is your assessment of the threat posed by al 
Shabaab?
    In your view, does al Shabaab pose a threat to the United States 
and/or western interests outside of its immediate operational area?
    Answer. My understanding is that successful operations by the 
African Union Mission in Somalia (AMISOM) have reduced al Shabaab's 
freedom of movement in south and central Somalia, but al Shabaab 
remains a threat to the U.S. Homeland and to U.S. and western interests 
in the Horn of Africa. Al Shabaab leaders have claimed affiliation with 
al Qaeda since 2007 and formally merged with the group in February 
2012. Al Shabaab has demonstrated the intent and capability to conduct 
terrorist acts throughout eastern Africa, and it presents a threat to 
the Homeland through links into Somali diaspora communities in the 
United States and Europe.
    Al Shabaab continues to stage high profile attacks in Somalia 
against Western and international targets and has claimed 
responsibility for the attack against the Westgate Mall in Nairobi. If 
al Shabaab did conduct the Westgate attack, it shows al Shabaab's 
capability to stage complex, high-profile attacks against Western 
targets outside of Somalia and its ability to harm U.S. citizens 
abroad.
    Question. What is your understanding of al Shabaab's activities to 
recruit foreigners, including Somali-Americans, to join their efforts?
    Answer. I understand that al-Shabaab has successfully recruited 
foreign recruits for training in Somalia, including Somali-Americans. 
Although the exact numbers and nationalities of foreign fighters in 
Somalia remain unclear, reports indicate that several hundred foreign 
recruits have come to Somalia to support al Shabaab and other extremist 
groups since 2008. Foreign fighters threaten the Somalia National 
Government and the AMISOM and undermine their efforts to build a stable 
and peaceful Somalia.
    Question. What is your understanding of the current U.S. strategy 
in Somalia and the role of DOD in that strategy?
    Answer. U.S. policies toward Somalia support the Somali National 
Government and AMISOM's efforts to deliver security and basic services 
and lay the foundation for an enduring government. However, Somalia's 
historical lack of governance and sparse population make it an 
appealing safe haven for al Shabaab and elements associated with al 
Qaeda.
    I understand that DOD's primary missions in the Horn of Africa are 
to combat terrorism and to build partner capacity to promote regional 
security and stability, prevent conflict, and protect U.S. interests. I 
believe this mission is appropriate. DOD's ultimate goal should be a 
fully integrated strategy under which security assistance, capacity 
building, operational collaboration with regional partners, and 
counterterrorism actions are synchronized to provide the regional 
security and stability that are in the interest of both the United 
States and our regional partners. If confirmed, I will work to ensure 
our strategy is developed as part of a coordinated U.S. national 
security policy towards the Horn of Africa, and to determine how DOD 
can and should best support this policy.
    Question. Should the United States establish military-to-military 
relations and consider providing assistance to the Somali national 
military forces?
    Answer. The United States can play a guiding and mentoring role in 
the development of Somalia's security sector. It is in our interest to 
ensure that Somalia's new government has a competent and professional 
military to provide security to its citizens and play a constructive 
role in the region. Formally recognizing the Somalia National 
Government earlier this year was an important first step to developing 
military relations. If confirmed, I will work to ensure DOD's 
relationship with the Somalia National Army progresses appropriately.
                    al qaeda in the islamic maghreb
    Question. What is your assessment of the threat posed by al Qaeda 
in the Islamic Maghreb (AQIM)?
    Answer. My understanding is that at this time, there is no credible 
evidence that AQIM is a direct threat to the U.S. Homeland. However, as 
seen in hostage situations in Algeria and other attacks in the region, 
AQIM and its associates do threaten U.S. persons and interests abroad, 
as well as our European Allies.
    Question. In your view, does AQIM pose a threat to the United 
States and/or western interests outside of its immediate operational 
area? What capacity has AQIM demonstrated to plan and carry out actions 
threatening U.S. interests?
    Answer. AQIM's immediate operational area includes pockets of 
ungoverned territory across North and West Africa. Though AQIM has not 
conducted an attack outside of this area, we must be proactive in 
denying a terrorist a safe haven throughout the region, from which 
direct attacks against the United States, our partners, or our 
interests outside of North and West Africa would be possible.
    Question. In your view, what has been the impact of the recent 
expansion of AQIM's area of operations in northern Mali on the group's 
capacities and aims?
    Answer. The expansion of AQIM's area of operations in northern Mali 
is not new. It has been a serious concern to the United States and our 
partners. France's operations in Mali and the regional and United 
Nations' peacekeeping forces have made significant progress in 
stabilizing the situation. We remain concerned about AQIM's freedom of 
action in Mali and throughout the region and will continue to work with 
partners, including the newly-inaugurated President of Mali, to address 
the threat.
        operation observant compass & the lord's resistance army
    Question. Despite pressure by the Ugandan People's Defense Forces 
(UPDF) and efforts by U.S. Special Operations personnel to support 
them, elements of the Lord's Resistance Army (LRA)--including Joseph 
Kony--continue to operate and commit atrocities against civilian 
populations in the Central African Republic, Democratic Republic of the 
Congo, and South Sudan. Some observers have identified operational 
concerns with this mission, including that: (1) supported forces are 
trying to find an elusive foe in an area roughly the size of 
California, much of which is covered in thick jungle; (2) technical 
support to U.S. forces and their UPDF partners from the defense and 
Intelligence Community continues to be inadequate; and (3) limitations 
continue to be placed on the ability of U.S. Special Operations 
personnel to accompany UPDF partners outside of main basing locations, 
thereby limiting the level of direct support they can provide.
    In your view, what is the objective of Operation Observant Compass 
(OOC)?
    Answer. Under OOC, U.S. SOF seeks to enhance the capacity of local 
forces to end the threat posed by the LRA. It is my understanding that 
U.S. military advisors are working with these forces to strengthen 
information-sharing and synchronization, enhance their operational 
planning, and increase overall effectiveness. While OOC is important in 
the effort to counter the LRA threat, there is not a purely military 
solution to this problem. The U.S. strategy to counter the LRA outlines 
four pillars for continuing support: increasing the protection of 
civilians; apprehending or removing Joseph Kony and senior commanders 
from the battlefield; promoting the defection, disarmament, 
demobilization and reintegration of remaining LRA fighters; and 
increasing humanitarian access and providing continued relief to 
affected communities. If confirmed, I would support the current U.S. 
policy of pursuing a comprehensive, multi-faceted strategy to help the 
governments and people of this region in their efforts to end the 
threat posed by the LRA and to address the impacts of the LRA's 
atrocities.
    Question. Do you support the continuation of DOD's current level of 
support to this mission?
    Answer. DOD's support to regional counter-LRA efforts helps to 
advance regional security cooperation and security sector reform. If 
confirmed, I would seek to continue the U.S. commitment to deepen our 
security partnerships with African countries and regional organizations 
by expanding efforts to build African military capabilities through 
low-cost, small-footprint operations.
    At the same time, I would work with the Department of State and 
other U.S. agencies and departments to seek to strengthen the capacity 
of civilian bodies and institutions to improve the continent's ability 
to provide security and respond to emerging conflicts. I would also 
regularly assess and review DOD's contributions to this mission to 
ensure our personnel are best supporting U.S. strategic interests.
                      republic of the philippines
    Question. What is your view of the effectiveness of U.S. assistance 
provided through the Joint Special Operations Task Force-Philippines to 
the military of the Republic of the Philippines in its fight against 
terrorist groups?
    Do you expect the necessity for or mission of the Joint Special 
Operations Task Force-Philippines to change in the coming years? If so, 
how?
    Answer. Operation Enduring Freedom-Philippines as executed by our 
Joint Special Operations Task Force has been very successful and serves 
as an excellent model for a partnership between the United States and a 
host nation for combatting a terrorism threat. Due to the success of 
this partnership, the Philippine Military is now transitioning its 
focus toward external threats and the security issues remaining in the 
south will be addressed primarily through a combination of civil and 
police actions.
                 stability and peacekeeping operations
    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, then U.S. Ambassador to 
the United Nations (U.N.), stated that the United States ``is willing 
to consider directly contributing more military observers, military 
staff officers, civilian police, and other civilian personnel--
including more women I should note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
more military personnel to both staff positions and military observers 
in support of U.N. peacekeeping operations?
    Answer. I am supportive of contributing personnel to function in 
staff positions or as military observers providing the mission aligns 
with the national security priorities of DOD and the United States. 
Successful U.N. peacekeeping operations are in the core national 
security interest of the United States, as they generally are cost 
effective, reduce the burden on U.S. forces, and in many cases directly 
advance U.S. strategy security interests. Additionally, U.S. military 
personnel can have a significant, positive, impact on U.N. peacekeeping 
operations, and provides the United States with an opportunity to shape 
these missions.
    Question. If confirmed, would you support identifying methods 
through which the DOD personnel system could be more responsive to 
requests for personnel support from multilateral institutions like the 
United Nations?
    Answer. If confirmed, I would be supportive of exploring ways where 
the Department could more effectively respond to requests for personnel 
support, bearing in mind any applicable legal requirements and the 
current operational tempo of U.S. forces.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. Our efforts abroad over the past decade have brought much 
attention to the importance of collaborative interagency efforts. The 
interagency collectively established procedures and relationships to 
successfully conduct counter-insurgency and counterterrorism 
operations. As we transition, the interagency must now look to maintain 
and improve upon the hallmarks of previous successful interagency 
efforts--well-informed, transparent, constant communication and 
collaboration at multiple levels. The interagency must ensure that all 
departments and agencies are operating under a common national 
strategic framework in support of achieving sustainable outcomes 
overseas and building long-lasting relationships with our global 
partners. With unity of effort, the interagency can implement broader 
foreign policies and national security objectives through fostering 
good governance, restoring public infrastructure, assisting economic 
activities, and/or enabling a secure environment through a capable, 
equipped armed force. If confirmed, I will continue efforts to ensure 
that interagency collaboration is as effective as possible.
    Question. How do you believe these efforts can be improved?
    Answer. One area of improvement concerns our government's approach 
to the immediate requirements of basic public order among foreign 
civilian populations when the rule of law has broken down. DOD has 
learned after hard experience in Afghanistan and Iraq that securing and 
protecting a population is not only an immediate military mission, but 
one that is essential for preventing insurgencies from growing and for 
a sustainable transition to host-country control. A whole-of-government 
approach is vital to assist in training foreign security forces and it 
takes a robust interagency effort to maintain those capacities and 
institutions that can educate, equip, and enable them for these 
missions.
    Question. Should these informal and ad hoc arrangements be made 
more formal (i.e. through legislation, DOD Directives or Instructions, 
et cetera . . . ) or is their ad hoc nature the reason for their 
success?
    Answer. Formality and standardization are perhaps most important at 
the highest levels, where clearly prioritized objectives--or the lack 
thereof--can have the most positive or pernicious effects on operations 
and campaigns requiring the close coordination of multiple instruments 
of national power. The President signed a Presidential Policy Directive 
(PPD) on Security Sector Assistance (SSA) in April to improve the U.S. 
Government's collective ability to address security sector assistance 
issues as a shared responsibility. To this end, the PPD prescribes 
interagency roles, responsibilities, and collaborating principles for 
developing and implementing SSA activities. On the other hand, 
organizations and teams operating at the tactical level need maximum 
flexibility to achieve mission success as current requirements, driving 
factors, and threats continuously change. Rather than attempting to 
standardize the roles and relationships of tactical-level operators 
from different departments and agencies, we should--instead--be working 
to familiarize them with each other and the responsibilities of their 
respective departments and agencies. Operational flexibility must be 
buttressed with the familiarity and education derived from constant 
interaction, particularly interaction in the forms of joint/interagency 
training and education.
    Question. Interagency collaboration on an operational or tactical 
level tends to address issues on a country-by-country basis rather than 
on a regional basis (e.g. international terrorists departing Mali for 
safe havens in Libya).
    How do you believe regional strategies that link efforts in 
individual countries can best be coordinated in the interagency arena?
    Answer. I understand that the recent security sector assistance 
policy guidance from the President emphasizes a ``deliberate and 
inclusive whole-of-government process that ensures alignment of 
activities and resources with our national security priorities.'' In 
order to synchronize planning for these activities, I believe the 
interagency must link efforts in individual countries to the broader 
regional approach. I also believe the regional strategies developed by 
the members of the interagency should complement each other. Any 
security sector assistance strategy is largely impacted by the degree 
to which the interagency can plan, synchronize, and execute particular 
activities in a region. With prescribed interagency roles, 
responsibilities, and collaborating guidelines the interagency is best 
prepared to share plans, develop and implement programs, and monitor 
and evaluate the progress of our efforts in individual countries.
               special operations personnel in embassies
    Question. SOCOM deploys personnel to work with country teams in a 
number of priority countries where the United States is not engaged in 
direct action operations, but rather trying to counter the spread of 
violent extremism. Their mission is to support the priorities of the 
Ambassador and the combatant commander's theater campaign plan against 
terrorist networks.
    If confirmed, how would you seek to ensure the goals of special 
operations personnel deployed to these countries are aligned closely 
with those of the Ambassadors they are working with?
    Answer. In your view, what is the value of these special operations 
personnel to their respective geographic combatant commands and the 
country teams they are supporting.
    The sustained partnership among our geographic combatant 
commanders, Ambassadors, and deployed special operations forces has 
been strong throughout the past 12 years. Special operations personnel 
deployed to embassies help provide a network-based approach to 
assessing threats, formulating options, and improving the country 
team's situational awareness. They bring specialized equipment and 
offer significant expertise in contingency operations that augments the 
Ambassador's resident capabilities. If confirmed, a priority of mine 
will be to continue working with SOCOM, the geographic combatant 
commanders, and State Department colleagues to further strengthen these 
trusted partnerships.
                       detainee treatment policy
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes. Ensuring individuals in the custody of U.S. forces are 
treated humanely is consistent with the applicable U.S. laws and the 
laws governing armed conflicts.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes. If confirmed, I will work to ensure that all U.S. 
Special Operations Forces continue to receive the necessary education 
and training in the standards established in the Army Field Manual, 
relevant DOD Directives, and other applicable requirements of U.S. and 
international law regarding detention and interrogation operations.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Section 1403 of the National Defense Authorization Act for 
Fiscal Year 2006 provides that no individual in the custody or under 
the physical control of the U.S. Government, regardless of nationality 
or physical location shall be subject to cruel, inhuman, or degrading 
treatment or punishment. We hold our forces accountable to treat those 
we capture and detain with dignity, respect, and humanity. We do this 
as a matter of principal and following our moral compass. Our hope 
would be for our enemy to treat our personnel in a similarly humane 
manner, but regardless of how our captured forces are held, we will 
continue to maintain the high standard of treatment currently provided 
to detainees we hold.
                    dod counternarcotics activities
    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1.5 billion to support the Department's CN 
operations, building the capacity of certain foreign governments around 
the globe, and analyzing intelligence on CN-related matters. In a 
recent Government Accountability Office (GAO) report, GAO found that 
DOD ``does not have an effective performance measurement system to 
track the progress of its counternarcotics activities.'' This is the 
second such finding relating by GAO to DOD CN in the last decade.
    What is your assessment of the DOD CN program?
    Answer. Having recently served as the Principal Deputy Assistant 
Secretary of Defense for Special Operations and Low-Intensity Conflict, 
I understand and appreciate the importance of DOD counterdrug 
activities in support of broader U.S. Government counternarcotics goals 
as well as the accomplishment of other key national security 
objectives. The DOD counterdrug program is providing critical support 
to our national security objectives in Afghanistan, Colombia, Mexico, 
Central America, Northwest Africa and elsewhere. I also recognize how 
the counternarcotics program supports the broader objectives of the 
office of the ASD for SO/LIC. If confirmed, I look forward to ensuring 
that these activities continue to be well-integrated into the overall 
SO/LIC strategy, and to ensure that they are as cost-effective as 
possible.
    Question. Do you believe DOD's current CN strategy has proven 
effective in stemming the flow of illegal narcotics?
    Answer. In support of The President's National Drug Control 
Strategy, DOD plays a key role in supporting U.S. and partner-nation 
counternarcotics efforts that have achieved major and sustained 
progress against cocaine use and distribution throughout the Western 
Hemisphere. According to the Office of National Drug Control Policy, 
DOD counternarcotics efforts have helped reduce the amount of cocaine 
reaching the United States, which has contributed to declines in 
cocaine overdose deaths, positive workplace drug tests, retail drug 
purity, and cocaine seizures in the United States. Through efforts such 
as the establishment of Joint Interagency Task Force-South and support 
to Plan Colombia, the Department of Defense has played a critical role 
in this success. Nevertheless, continued high levels of cocaine, 
heroin, methamphetamine trafficking, and the growing threat of 
synthetic drugs, continues to present an extraordinarily difficult 
challenge, and DOD brings unique capabilities to bear against these 
threats.
    Question. In what ways can the effectiveness of DOD CN programs be 
better evaluated?
    Answer. Over the past several years, the DOD CN program has made 
significant progress in improving its performance evaluation framework 
and has developed standardized operating procedures to apply across the 
wide range of combatant commands, armed services, and defense agencies 
that implement the Department's CN efforts. The performance data 
provided is now being used to inform policy and budgetary decisions. 
However, we continue to work to move beyond measuring performance based 
on inputs and outputs (e.g. numbers of personnel trained) rather than 
on the outcomes these programs are seeking to achieve. These types of 
evaluations can be much more difficult but would ultimately provide a 
better assessment of the value of these efforts.
    Question. In your personal view, what role should DOD play in U.S. 
efforts to stem the flow of illegal narcotics?
    Answer. The Department of Defense's role in U.S. counterdrug 
efforts is, and should continue to be, to employ militarily unique 
knowledge, skills, and capabilities to confront the wide range of 
national security threats associated with drug trafficking and related 
forms of transnational crime. Since the late 1980s, when DOD was 
designated as the single lead agency for the detection and monitoring 
of drug trafficking bound for the United States, DOD has provided 
critical counterdrug support to State, local, Federal, and foreign law 
enforcement partners to combat the flow of illicit drugs into our 
country. Narcotics and other forms of transnational organized crime 
also provide key financial support to terrorists, insurgents, and other 
threat forces, and contribute to global instability by undermining 
legitimate government institutions, fostering corruption, and 
distorting legitimate economic activity. Accordingly, DOD counterdrug 
efforts support the National Security Strategy, the National Drug 
Control Strategy, and the Strategy to Combat Transnational Organized 
Crime.
    DOD's efforts to build the counternarcotics capacity of partner-
nation security forces serves to prevent and deter broader conflicts 
that could require a much more costly military intervention in the 
future. In today's increasingly austere budgetary environment, these 
programs can serve as cost-effective tools to accomplishing key 
national security objectives. Given the interwoven nature of threats we 
face today, we are increasingly seeing that the expertise, authorities, 
and experience of our law enforcement partners are essential to 
accomplishing national security objectives.
                         counter threat finance
    Question. Identifying and disrupting key individuals, entities, and 
facilitation routes enabling the flow of money that supports terrorism, 
production of IEDs, narco-trafficking, proliferation, and other 
significant national security threats could have an outsized impact on 
confronting these threats. In August 2010, the Department issued a 
Counter Threat Finance (CTF) Policy Directive which recognized the CTF 
discipline as an essential tool in combating criminal networks and 
terrorist organizations and called for the integration of CTF 
capabilities into future force planning and the continued support to 
interagency partners conducting CTF operations.
    What is your assessment of DOD efforts to date to institutionalize 
and support these capabilities?
    Answer. The DOD CTF Directive, which was updated in November 2012, 
drives the institutionalization of CTF within the Department. Since our 
Nation's adversaries, from drug traffickers to terrorists, insurgents 
and rogue nations rely upon the flow of money to enable their 
activities, upsetting their financial supply lines is a proven means of 
disrupting threats to national security. CTF is an important capability 
in the Department as evidenced by our success with the Iraq and 
Afghanistan Threat Finance Cells. We've also seen increasing success 
from the CTF units established at each of the combatant commands. These 
CTF units coordinate across the government and work in support of the 
interagency to counter national security threats. Ultimately, success 
in CTF will depend on DOD's continued ability to integrate with, 
support, and complement other U.S. Government, multinational, and host 
nation activities. If confirmed, I will ensure DOD continues to 
collaborate with and support other U.S. Government departments and 
agencies to conduct counter threat finance activities.
    Question. What is your assessment of the current ability of the 
Department to provide support to other U.S. Government departments and 
agencies conducting counter threat finance activities?
    Answer. It is critical to engage all U.S. Government tools to track 
and halt the flow of money and to fight our adversaries' ability to 
access and use global financial networks. Although DOD is not the lead 
U.S. agency for CTF, it does work with and support other departments, 
agencies, and partner nations through a unique set of capabilities, 
including long-term planning, network analysis, and intelligence 
analysis. The Department's senior leadership recognizes the 
significance, both strategically and tactically, of a capable and 
robust CTF posture. I do not anticipate an immediate need to expand the 
support DOD is providing, but, if confirmed, I will work to ensure the 
Department remains fully engaged in the interagency process on counter 
threat finance activities and is postured to provide additional support 
if necessary.
    Question. What changes, if any, would you recommend to DOD's 
current counter threat finance efforts?
    Answer. I understand the Department is in the process of examining 
and evaluating its counter threat finance capability, and I believe 
there are improvements that can be made. Principally, the Department's 
CTF capability should be better integrated into the policy and strategy 
of the Department, including COCOM theater campaign plans. I understand 
that the Department is conducting a capabilities-based assessment for 
CTF that will help identify and institutionalize these capabilities 
across the COCOMs, the armed services, and defense agencies. This 
assessment should help us to identify the full range of capabilities 
the Department could bring to bear in support of broader U.S. 
Government efforts.
    Question. What do you believe is the appropriate role, if any, of 
SOCOM in supporting counter threat finance activities?
    Answer. SOCOM is well suited to support and augment interagency 
efforts to counter threat finance. Experiences since 2001 have led to 
the development of a robust capability to analyze insurgent, terrorist, 
and transnational threat networks, and SOF are already integrated at 
many levels with interagency partners across the intelligence and law 
enforcement domain. SOF contributions to these agencies enables them to 
identify sources of insurgent, criminal, and terrorist finances; 
disrupt front companies; develop actionable financial intelligence; 
freeze and seize illicit funds; and build criminal cases.
       national strategy to combat transnational organized crime
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing. The Director of National 
Intelligence recently described transnational organized crime as ``an 
abiding threat to U.S. economic and national security interests,'' and 
stated that ``rising drug violence and corruption are undermining 
stability and the rule of law in some countries'' in the Western 
Hemisphere. In July 2011, the President released his Strategy to Combat 
Transnational Organized Crime: Addressing Converging Threats to 
National Security. One of the priority action areas designated in the 
strategy is ``enhancing Department of Defense support to U.S. law 
enforcement.''
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The President's Strategy to Combat Transnational Organized 
Crime applies to all elements of national power to protect citizens and 
U.S. national security interests from the convergence of 21st century 
transnational criminal threats. It declares transnational organized 
crime a threat to national security and includes a clear call to build, 
balance, and integrate the tools of American power to combat 
transnational organized crime, and urge our foreign partners to do the 
same. The end-state the U.S. Government seeks is to reduce 
transnational organized crime from a national security threat to a 
manageable public safety concern.
    Question. What is your understanding of the Department's role 
within the President's strategy?
    Answer. The President's strategy acknowledges DOD's role in 
providing support to law enforcement. DOD brings many unique supporting 
capabilities in support of broader U.S. Government efforts to combat 
transnational organized crime, principally through the employment of 
the Department's counternarcotics authorities. These capabilities 
primarily include military intelligence support and counter-threat 
finance support to U.S. law enforcement. We therefore must ensure that 
DOD is organized, resourced, and appropriately authorized to provide 
vital support to law enforcement and foreign partners to confront the 
national security threats associated with transnational organized 
crime. If confirmed, I look forward to exploring what additional U.S. 
support is appropriate under existing authorities.
    Question. In your view, should DOD play a role in providing support 
to the U.S. law enforcement and the Intelligence Community on matters 
related to transnational organized crime?
    Answer. Yes. Due to the national security implications of drug 
trafficking and related forms of transnational organized crime, the 
Department should continue to provide support to our interagency 
partners, including Federal law enforcement agencies and intelligence 
agencies. For example, DOD currently supports law enforcement through 
intelligence analysis at the Narcotics and Transnational Crime Support 
Center--an action specifically highlighted in the President's strategy. 
DOD also provides unique supporting capabilities including military 
intelligence support to law enforcement, counter threat finance, 
partner nation capacity building, and operational activities against 
threats to the United States.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations.
    In your view, what are our strategic objectives in building the 
capacities of partner nations?
    Answer. In my view, the department's ability to effectively build 
the capacities of partner nations is a strategic necessity for the 
United States. It enables the Department to directly provide training, 
equipment, and other support to partners to encourage and enable them 
to share security responsibilities. This includes enabling partners to 
act alongside of, in lieu of, or in support of U.S. forces across the 
globe. In our fiscal climate, we should continue these capacity 
building activities so that we can achieve our defense objectives while 
reducing risks of sending U.S. forces into harm's way.
    Question. In light of demands for defense budget cuts, how would 
you assess the trade-offs between providing funding for U.S. military 
forces and providing assistance to build the capacity of partner 
nations' security forces?
    Answer. I believe one goal of building the capacity of a partner 
nation is to transform them from a security consumer to a security 
provider. The decision on where the trade-off is lies in the 
prioritization of U.S. strategic interests. We must continue to ensure 
U.S. military forces receive the appropriate resources, equipment, and 
training in order to serve effectively and be prepared to respond at 
any given notice. At the same it is still important to sustain 
engagement with key partners and building partner capacity to meet 
shared challenges provides a forward presence to enable operations and 
deter threats and, if and when necessary, to conduct future 
contingencies. During these uncertain times, we should continue to 
improve military-to-military and defense-civilian relations, while 
continuing to evaluate and re-calibrate the nature and substance of our 
relationships to ensure they are consistent with U.S. values and 
advance U.S. vital national interests. If confirmed, it is my aim to 
ensure our assistance programs to partner nations will fulfill defined 
strategic requirements and vitally important capability gaps that are 
directly in line with the President's and the Defense Secretary's 
strategic guidance.
    Question. What is your assessment of the sufficiency of existing 
security assistance authorities to address the evolving nature of 
global security threats?
    Answer. Developing partner capacity through security sector 
assistance is important because every one of our primary missions 
involves collaborating with partners to some extent. These investments 
buy down risk and ease the burden of U.S. forces by improving our 
partners' ability to provide for their own security, to contribute to 
larger regional and combined security efforts, or to enable U.S. 
operations consistent with our national objectives. In some cases, 
partners are better positioned than U.S. Forces to conduct security 
operations due to cultural affinity or political sensitivities. I 
understand that Congress has provided the Department of Defense 
security sector assistance authorities that have improved our partners' 
capabilities and capacity to contribute to security around the globe. 
There may be requirements where additional or more agile authority is 
needed to address emerging security challenges. If confirmed, I will 
look forward to working with Congress to develop appropriate 
legislative remedies where appropriate.
    Question. What is your understanding of the purpose of the section 
1206 train and equip authority? What is your assessment of the 
implementation of the global train and equip program?
    Answer. The section 1206 authority builds capacity for 
counterterrorism operations and stability operations where U.S. forces 
are a participant. The program has been successful in responding to 
annual requests by the combatant commanders and Chiefs of Mission for 
near-term assistance to overcome critical shortfalls in partner 
capabilities. This includes providing training and equipment to nations 
deploying forces to the International Security Assistance Force (ISAF) 
in Afghanistan. Although the 1206 program has done a great job 
delivering equipment, we need to do more work on assessing the effects 
this has on improving partner capacity over the long term. If 
confirmed, I will continue development of assessment metrics and work 
closely with Department of State colleagues to integrate 1206 
capabilities into our overall foreign assistance programs for partner 
nations.
    Question. The Global Security Contingency Fund (GSCF) was 
established in the NDAA for Fiscal Year 2012 to create a joint 
Department of Defense-Department of State administered program to build 
partner nation capacity in the areas of security and rule of law. What 
is your assessment of the implementation of this authority? Do you 
believe it's achieving its intended objectives? If not, do you believe 
modifications are required?
    Answer. The GSCF enables the Departments to address emergent 
opportunities and challenges in partner's security sectors that could 
not be planned for but that have a direct bearing on our national 
security interests and do so in a more collaborative and integrated 
approach.
    While I have not been involved in the implementation of the GSCF, I 
understand that the Departments of Defense and State have made 
significant progress towards improving joint implementation of the 
program and intend to incorporate a robust monitoring and evaluation 
framework to assess each individual GSCF project, as well as the 
overall program in the country of interest. If confirmed, I look 
forward to sharing the results of the assessment effort with Congress, 
and specifically this committee. I will welcome your help and continued 
guidance as we continue to mature the GSCF.
    Question. What is the relationship of the train and equip authority 
to other security assistance authorities, such as counternarcotics 
assistance, foreign military financing, and other title 22 authorities? 
What should be done to ensure that the global train and equip authority 
does not duplicate the efforts of these other assistance programs?
    Answer. U.S. security sector assistance authorities across programs 
are complementary, and I will strive to avoid unnecessary duplicative 
efforts. The counternarcotics authorities are focused on providing the 
Department of Defense the ability to support U.S. or other Government 
efforts to counter the flow of narcotics globally. If confirmed, the 
GSFC, section 1206, and counternarcotics authorities would fall under 
my purview, and I would monitor their implementation to ensure they 
continue to be used appropriately, and in keeping with their intent. I 
understand that the President issued new guidance on security sector 
assistance in April. If confirmed, I will strive to strengthen our 
capacity to plan, synchronize, and implement security sector assistance 
through a deliberate and inclusive process that ensures alignment of 
activities and resources with our national security priorities.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, if confirmed, I will appear before this committee and 
other appropriate committees of Congress when called upon to do so.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASD(SO/LIC)?
    Answer. Yes, if confirmed, I will provide this committee or members 
of this committee accurate and appropriate information to the best of 
my ability when called upon to do so.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, if confirmed, I will provide the necessary information 
to this committee and other appropriate committees and their staff when 
asked to do so.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, if confirmed, I will provide the committee the 
necessary documents when appropriate and will consult with the 
committee regarding the basis for any good faith delay or denial in 
providing documents.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                   current state of global terrorism
    1. Senator Inhofe. Mr. Lumpkin, in remarks to the United Nations 
General Assembly on September 24th, President Obama stated that, ``the 
world is more stable than it was 5 years ago.'' Do you believe the 
world is more stable than it was 5 years ago?
    Mr. Lumpkin. I agree with President Obama's assessment that the 
world is more stable than 5 years ago, but I also agree with his next 
sentence in that speech, which stated: ``But even a glance at today's 
headlines indicates that dangers remain.'' The President outlined these 
dangers, particularly those related to global terrorism, in his address 
to the National Defense University on May 23. In this address he said 
our Nation is still threatened by terrorists--``From Benghazi to 
Boston, we have been tragically reminded of that truth. But we have to 
recognize that the threat has shifted and evolved from the one that 
came to our shores on September 11.'' I agree with the President that 
we will counter the threat of global terrorism through a combination of 
efforts, including targeted action against terrorists, effective 
partnership with allies and friends, and diplomatic engagement and 
assistance. Through this comprehensive strategy we can significantly 
reduce the chances of large-scale attacks on the Homeland and mitigate 
the threats to Americans overseas.

                       al qaeda threat assessment
    2. Senator Inhofe. Mr. Lumpkin, does the growth of al Qaeda in 
Syria indicate al Qaeda is less capable?
    Mr. Lumpkin. The continued civil war in Syria provides al Qaeda and 
other extremist groups with an opportunity to expand their influence 
and develop a cadre of experienced fighters. Al Nusrah Front has 
clearly grown and become more capable in Syria, but to date has not 
shown capability to conduct external attacks.

    3. Senator Inhofe. Mr. Lumpkin, Charles Lister, an analyst for IHS 
Janes Terrorism and Insurgency Center, said: ``Syria is the biggest al 
Qaeda opportunity in a decade to establish a foothold in the Middle 
East.'' Do you agree?
    Mr. Lumpkin. Al Qaeda's affiliated groups, al Nusrah Front and al 
Qaeda in Iraq, as well as other extremist groups, are a growing problem 
inside Syria. Al Qaeda has seized an opportunity created by the absence 
of security in Syria and become one of the most dominant opposition 
groups. That said their long-term viability remains in question, as 
does their potential to garner popular support in a post-Assad Syria. 
Broadly speaking, al Qaeda's message has failed to resonate with new 
governments in other Arab Spring countries, and I would expect the same 
outcome in Syria.

    4. Senator Inhofe. Mr. Lumpkin, what do you think we should do 
about it?
    Mr. Lumpkin. The United States should continue to engage and work 
with our partners and allies to provide stability in the region. These 
efforts aim to stem the flow of foreign fighters and support the 
moderate factions of the opposition who represent the majority of the 
Syrian opposition. The United States is working with our allies to 
accelerate political transition in Syria and to end the bloodshed as 
quickly as possible. If confirmed, I will work with my interagency 
partners to develop recommendations for appropriate lines of operation 
to combat al Qaeda's foothold in the Middle East and to protect U.S. 
presence and interests in the region.

    5. Senator Inhofe. Mr. Lumpkin, al Qaeda is clearly gathering 
strength in the ungoverned regions of northern and eastern Syria, the 
Washington Post reports that fewer than 1,000 Syrian rebels have been 
trained this year. As the moderate opposition grows weaker, the 
extremists, and al Qaeda in particular, grow stronger and Assad has 
less incentive to participate in the political negotiation the 
administration says will result in his departure. Do you think the 
training cited by the Washington Post is capable of altering any 
balance of power within Syria?
    Mr. Lumpkin. Training is and has been helpful in supporting the 
moderate opposition secure areas under its control. However, training 
is only part of the equation and we must continue to work with allied 
partners to attain a political solution supporting the moderate Syrian 
opposition. If confirmed, I will work with our partners across the 
interagency and with our allied partners in order to explore 
comprehensive, coordinated, unified approaches that will support 
meeting U.S. objectives in the region.

    6. Senator Inhofe. Mr. Lumpkin, what strategy do you suggest to 
contain the growth of extremism in Syria--of Hezbollah and Shia 
extremism on the one hand under Assad and al Qaeda and al Nusra in 
ungoverned spaces on the other?
    Mr. Lumpkin. To combat the growth of extremism in Syria, a 
political solution to the Syrian conflict is necessary. We need to 
continue to explore avenues with our allied partners for supporting the 
moderate opposition to ultimately increase their ability to provide a 
legitimate government to the Syrian population. If confirmed, I will 
work with the interagency to develop recommendations for appropriate 
lines of operation to combat the growth of extremism in Syria and to 
protect U.S. presence and interests in the region.
                                 ______
                                 
               Question Submitted by Senator John McCain
                              afghanistan
    7. Senator McCain. Mr. Lumpkin, what force size do you recommend 
the United States should leave behind in Afghanistan after 2014?
    Mr. Lumpkin. Our core goal--to defeat al Qaeda and prevent its 
return to Afghanistan and Pakistan--remains unchanged. Over the past 4 
years, due to the dedication and sacrifices of our forces, our 
coalition partners, and the Afghan security forces, I have been 
encouraged by the progress made toward our goal and believe this 
progress can continue beyond 2014.
    The Executive Branch is reviewing options for the size of our 
contribution to the post-2014 NATO mission, as well as a limited U.S. 
counterterrorism mission, and that decision will be based on a number 
of factors, including:

        <bullet> Conclusion of a U.S.-Afghan Bilateral Security 
        Agreement and the NATO Status of Forces Agreement;
        <bullet> Progress toward our core goal of disrupting, 
        dismantling, and defeating al Qaeda and preventing its return 
        to Afghanistan and Pakistan;
        <bullet> Continued progress and development of the ANSF;
        <bullet> A peaceful Afghan political transition centered on the 
        elections in April 2014;
        <bullet> The potential for peace talks between the Afghan 
        Government and the Taliban.

    If confirmed, one of my priorities would be to confer with our 
operational commanders to get their views of the situation at hand. I 
would then work with colleagues to provide my recommendations and 
participate in this review process to help senior leaders continue to 
make informed decisions that protects U.S. interests in Afghanistan and 
the region.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                 al-libi and lack of a detention policy
    8. Senator Ayotte. Mr. Lumpkin, can you describe Abu Anas al-Libi's 
al Qaeda background and his potential intelligence value?
    Mr. Lumpkin. Abu Anas al-Libi is a legacy al Qaeda member likely 
possessing information of value to the intelligence and law enforcement 
communities. He has been indicted and presented in the Southern 
District of New York in connection with his alleged role in the attacks 
on our embassies in Dar es Salaam, Tanzania and Nairobi, Kenya in 1998.

    9. Senator Ayotte. Mr. Lumpkin, why was the decision made to take 
the risk and to attempt to capture al-Libi, rather than killing him?
    Mr. Lumpkin. Wherever possible, our first priority is and always 
has been to apprehend terrorist suspects, and to preserve the 
opportunity to collect valuable intelligence that can help us protect 
the American people. Additionally, the prospect of gathering further 
operational and strategic information of other terrorist individuals, 
organizations, and networks is a top consideration when determining the 
risk mitigation strategy.

    10. Senator Ayotte. Mr. Lumpkin, do you agree that when we kill--
rather than capture--a high value detainee we lose valuable 
intelligence?
    Mr. Lumpkin. Valuable intelligence can be collected during lethal 
or capture operations. Capture operations allow for the ability to 
directly interrogate the detainee and exploit any sensitive site 
materials discovered with the high value target. Lethal operations, 
whether involving an assault force or an aerial strike, also provide 
opportunities for either first-hand or second-hand sensitive site 
exploitation of where the high value target was killed. Previous lethal 
operations have yielded valuable tactical and strategic information.
                                 ______
                                 
    [The nomination reference of Mr. Michael D. Lumpkin 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 11, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael D. Lumpkin, of California, to be an Assistant Secretary of 
Defense, vice Michael A. Sheehan.
                                 ______
                                 
    [The biographical sketch of Mr. Michael D. Lumpkin, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Michael D. Lumpkin
Education:
    University of California, San Diego

        <bullet> September 1982-June 1986
        <bullet> Bachelor of Arts Degree awarded June 1986

    Naval Postgraduate School

        <bullet> June 1994-December 1995
        <bullet> Master of International Affairs Degree awarded 
        December 1995
        <bullet> Subspecialty in Special Operations and Low Intensity 
        Conflict awarded December 1995
Employment record:
    U.S. Department of Defense

        <bullet> Special Assistant to the Secretary of Defense
        <bullet> May 20-present

    Industrial Security Alliance Partners, Inc.

        <bullet> Chief Executive Officer
        <bullet> September 2012-March 2013

    Pistris, LLC

        <bullet> Director of Business Development
        <bullet> June 2012-September 2012

    The O'Gara Group

        <bullet> Technical Analyst
        <bullet> May 2012-September 2012

    U.S. Department of Defense

        <bullet> Principal Deputy Secretary of Defense for Special 
        Operations and Low Intensity Conflict
        <bullet> April 2011-May 2012

    U.S. Department of Veterans Affairs

        <bullet> Senior Advisor to the Secretary of Veterans Affairs
        <bullet> Deputy Chief of Staff for Operations
        <bullet> August 2010-April 2011

    The O'Gara Group

        <bullet> Technical Analyst
        <bullet> July 2009-August 2010

    Aardvark Tactical, Inc.

        <bullet> Director of Business Development
        <bullet> April 2008-August 2010

    U.S. Special Operations Command Office of Legislative Affairs

        <bullet> Maritime Director
        <bullet> August 2006-September 2007

    Special Boat Team Twelve

        <bullet> Commanding Officer
        <bullet> August 2004-August 2006

    Naval Special Warfare Group One

        <bullet> Operations Officer
        <bullet> February 2003-August 2004

    Naval Officer at Various U.S. Navy Commands

        <bullet> October 1986-September 2007
Honors and awards:
    The Secretary of Defense Medal for Outstanding Public Service 
(2012)
    Department of Veterans Affairs Commendation (2011)
    American Defense Preparedness Association Award (1994)
    Defense Meritorious Service Medal
    Meritorious Service Medal - seven awards
    Navy and Marine Corps Commendation Medal - two awards
    Joint Service Achievement Medal - two awards
    Navy and Marine Corps Achievement Medal - three awards
    Joint Meritorious Unit Award - two awards
    Meritorious Unit Commendation - two awards
    National Defense Service Medal - two awards
    Armed Forces Expeditionary Medal
    Afghanistan Campaign Medal
    Iraq Campaign Medal
    Southwest Asia Service Medal
    Global War on Terrorism Medal
    Combat Action Ribbon
    Humanitarian Service Medal
    Sea Service Deployment Ribbon - seven awards
    Korean Service Medal
    Navy Overseas Service Medal - two awards
    Navy Pistol Expert Medal
    Navy Rifle Expert Medal
    Naval Special Warfare (Authorized to wear USN SEAL Trident)
    Surface Warfare (Authorized to wear Surface Warfare insignia)
    Command at Sea (Authorized to wear Command at Sea pin)
    Shore Command (Authorized to wear Shore Command pin)
    Navy Parachutist (Authorized to wear Gold Parachutist insignia)
    Patrol Officer (Authorized to wear Combatant Craft Patrol Officer 
pin)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. Michael D. 
Lumpkin in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael David Lumpkin.
    ``Mike'' David Lumpkin.

    2. Position to which nominated:
    Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict.

    3. Date of nomination:
    September 11, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 14, 1964; Oceanside, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Jill Louise Powell.

    7. Names and ages of children:
    Stepson: Luke Elliot Powell; July 9, 1976.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Vista High School: 09/1979-06/1982, High School Diploma
    University of California, San Diego: 09/1982-06/1986, Bachelor of 
Arts
    Naval Postgraduate School: 06/1994-12/1995, Master of Arts

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    05/2013-Present; Special Assistant to the Secretary of Defense, 
1000 Pentagon Defense, Washington, DC.
    09/2012-03/2013; Chief Executive Officer, Industrial Security 
Alliance Partners, USA, 3033 5th Avenue, Suite 400, San Diego, CA.
    06/2012-09/2012; Director of Business Development, Pistris, LLC., 
P.O. Box 105, Hull, MA.
    05/2012-09/2012; Technical Analyst, The O'Gara Group, 700 W. Pete 
Rose Way, Suite 4N,Cincinnati, OH.
    04/2011-05/2012; Principal Deputy Assistant Secretary of Defense 
for Special Operations and Low Intensity Conflict, Department of 
Defense, 1000 Defense Pentagon, Washington, DC.
    08/2010-04/2011; Deputy Chief of Staff, Department of Veterans 
Affairs, 810 Vermont Ave, NW, Washington, DC.
    07/2009-08/2010; Technical Analyst, The O'Gara Group, 700 W. Pete 
Rose Way, Suite 4N, Cincinnati, OH.
    04/2008-08/2010; Director of Business Development, Aardvark 
Tactical, 1002 W. Tenth Street,Azusa, CA.
    08/2006-09/2007; Maritime Director, SOCOM Office of Legislative 
Affairs, 400 Virginia Ave., SW, Washington, DC.
    08/2004-08/2006; Commanding Officer, Special Boat Team Twelve, 3402 
Tarawa Road, San Diego, CA.
    02/2003-08/2004; Operations Officer, Naval Special Warfare Group 
One, 3632 Guadalcanal Road,San Diego, CA.
    10/1986-02/2003; Naval Officer at Various Navy Commands.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    N/A.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    N/A.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Fraternal Order of UDT/SEAL: Member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for whichyou have been a candidate.
    Candidate U.S. House of Representatives (CA-52) in 2008.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
Civilian Federal Service:
    The Secretary of Defense Medal for Outstanding Public Service
Military Awards:
    Defense Meritorious Service Medal
    Meritorious Service Medal - seven awards
    Navy Commendation Medal - two awards
    Joint Service Achievement Medal - two awards
    Navy and Marine Corps Achievement Medal - three awards
    Joint Meritorious Unit Award - two awards
    Meritorious Unit Commendation - two awards
    National Defense Service Medal - two awards
    Armed Forces Expeditionary Medal
    Afghanistan Campaign Medal
    Iraq Campaign Medal
    Southwest Asia Service Medal
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Combat Action Ribbon
    Humanitarian Service Medal
    Sea Service Deployment Ribbon - seven awards
    Korean Service Medal
    Navy Overseas Service Medal - two awards
    Navy Pistol Expert Medal
    Navy Rifle Expert Medal
    Designated: U.S. Navy SEAL (Authorized to wear SEAL Trident)
    Surface Warfare (Authorized to wear Surface Warfare device)
    Command at Sea (Authorized to wear Command at Sea pin)
    Shore Command (Authorized to wear Shore Command pin)
    Navy Parachutist (Authorized to wear Gold Wings)
    Patrol Officer (Authorized to wear Combatant Craft Patrol Officer 
pin)
Other Awards:
    1994 - Recognized for Outstanding Performance in support to 
national security during Counterdrug Operations by Armed Forces 
Preparedness Association.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Naval Postgraduate School Thesis (1995): Microviolence at Sea.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Submitted separately.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Michael D. Lumpkin.
    This 23rd day of September, 2013.

    [The nomination of Mr. Michael D. Lumpkin was reported to 
the Senate by Chairman Levin on October 31, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on November 14, 2013.]
                              ----------                              

    [Prepared questions submitted to Dr. Jamie M. Morin by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I am familiar with the history of the Goldwater-Nichols Act 
and believe it has been extremely successful to date. The Act has 
benefitted over the years from periodic incremental changes to reflect 
lessons learned and the changing world situation. It is possible that 
pending analysis of potential process changes to increase headquarters 
efficiency and allow reductions in headquarters staff and budgets will 
depend on legislative changes, but those initial analyses are still 
underway and I have not been briefed on any recommendations.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. At present, I do not have any concrete proposals for 
modifications. If I am confirmed and I identify areas that I believe 
merit changes, I will propose those changes through the established 
process. I believe it is important that the Director of Cost Assessment 
and Program Evaluation (CAPE) be a trusted independent advisor to the 
Secretary and Deputy.
                      duties and responsibilities
    Question. The Weapon Systems Acquisition Reform Act (WSARA) of 2009 
established the position of Director of CAPE and makes that official 
``responsible for ensuring that cost estimates are fair, reliable, and 
unbiased, and for performing program analysis and evaluation functions 
currently performed by the Director of Program Analysis and 
Evaluation.'' The duties and responsibilities of this position are set 
forth in section 139c of title 10, U.S.C. and in section 2334 of such 
title (addressing independent cost estimation and cost analysis).
    What is your understanding of the primary duties and 
responsibilities of the Director of CAPE?
    Answer. I have read the WSARA, and in my past role as a Senate 
staffer closely observed the floor debate where it was adopted. Based 
on the law and practice in the Department of Defense (DOD) over the 
last 4 years, I understand that CAPE is responsible for providing 
unbiased, independent cost estimates for all major acquisition 
programs; ensuring that program cost and schedule estimates are 
properly prepared and considered in the Department's deliberations on 
major acquisition programs; providing guidance and oversight for 
Analyses of Alternatives (AoA) to ensure that the Department considers 
the full range of program and non-materiel solutions. Additionally, the 
Director of CAPE is responsible for leading the development of improved 
analytical skills and competencies within the CAPE workforce of DOD. 
Finally, the Director has served as a key advisor to the Secretary and 
Deputy Secretary of Defense especially for the programmatic development 
of the Department's Future Years Defense Program.
    Question. Do you believe that the Director of CAPE has the 
authority needed to carry out the duties and responsibilities assigned 
by statute?
    Answer. Yes.
    Question. Do you see any need for modifications in the duties and 
responsibilities of the Director of CAPE?
    Answer. Not at this time. If confirmed, I will evaluate any need 
for modifications to the duties and responsibilities in the law.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect the Secretary of Defense to assign to you in 
accordance with sections 113 and 139c(b)(1)(B) of title 10, U.S.C.?
    Answer. If confirmed, I expect the Secretary to assign me the 
duties and functions commensurate with the position, and any others he 
may deem appropriate.
                             qualifications
    Question. If confirmed as Director of CAPE, you will be the 
principal official in DOD responsible for cost estimation and cost 
analysis for acquisition programs; for review, analysis and evaluation 
of acquisition programs; and for related matters.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I have over 10 years of experience in government as a 
defense analyst and executive, with particular focus on budgetary and 
programmatic issues. This hands-on experience built on my academic 
research, focused on the challenges of defense budgeting during times 
of budgetary decline and included significant training in quantitative 
and qualitative methods.
    For the last 4 years, I have served as the Assistant Secretary of 
the Air Force for Financial Management and Comptroller, and in this 
role I oversee the operation of the Air Force Cost Analysis Agency 
(AFCAA). With my support and advocacy, the AFCAA team was able to 
expand their analytical agenda, enhance their workforce, and thereby 
produce rigorous cost estimates of a much wider range of Air Force 
programs. Additionally, AFCAA's work became much more central to the 
Air Force's corporate decisionmaking, resulting in much narrowed gaps 
between the authoritative cost estimates (whether they were done by 
CAPE or AFCAA) and the actual amounts funded in the Air Force budget 
request. This gap was $11.9 billion in fiscal year 2011 President's 
budget (PB) and has dropped to $1.3 billion in the fiscal year 2014 PB. 
We also expanded AFCAA's capability to estimate the full life-cycle 
costs of major weapons systems by including operating and support 
costs, and helped to inform an Air Force-wide effort to contain cost 
growth in weapons systems sustainment. Finally, during 10 months as the 
Acting Under Secretary of the Air Force, I was deeply immersed in the 
development of the Air Force program and in DOD-wide debates on 
efficiency efforts.
    Earlier in my career, I worked as an economist and strategy 
consultant. I have also held fellowships from various public policy and 
defense think tanks and spent 4 months during graduate school in the 
Office of the Under Secretary of Defense for Policy working on 
requirements and planning issues.
    Question. What background and experience do you have in the 
acquisition of major weapon systems?
    Answer. I have been a part of major acquisition decisions in both 
my Air Force roles, including my comptroller role as the co-signer 
(with SAF/AQ) of Air Force full-funding certifications for acquisition 
programs meeting milestone decisions. In this capacity, I have closely 
reviewed numerous acquisition program cost estimates and discussed 
their details with both cost estimators and program management. As 
Acting Under Secretary, I was deeply exposed to space acquisition 
efforts in my role as the Headquarters Air Force ``focal point'' for 
space programs. I have served as a member and a co-chair of the Air 
Force Council, which is the Air Force's senior-most corporate 
decisionmaking body, as well as a member of the Special Programs 
Oversight Council that reviews classified Air Force acquisition 
programs. As part of earning the Certified Defense Financial Manager 
designation, I studied the acquisition process with particular focus on 
financial management responsibilities. However, I have not served in a 
direct program management or line acquisition position.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Director of CAPE?
    Answer. The WSARA of 2009 is intended to reform defense acquisition 
processes and to bring cost growth under control. The CAPE organization 
continues to mature in response to this legislation and Department 
management's need for rigorous, unbiased advice on where DOD can find 
necessary savings in a difficult budget environment. I have seen the 
organization perform exceptionally good work for the Secretary on a 
wide range of difficult issues, but given the scale of the budget 
challenges even better analytical support will be essential. I believe 
the primary challenge for the Director of CAPE, given the current 
reality of sequestration and the stark choices that the sequester 
compels us to make, will be to ensure independent, thorough, and 
insightful analysis is used to develop a comprehensive set of options 
for informed leadership decisions.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I expect to immediately undertake a review of 
the organization and its ability to fully meet statutory requirements, 
with the goal to provide clear recommendations regarding changes to 
organizational structure and additional resource demands. I believe I 
will need to review the size, shape, and organization of the CAPE 
workforce in detail to ensure the organization is aligned to meet 
current and future needs. Given the significant statutory 
responsibilities under WSARA and the relatively limited growth of CAPE 
staffing since its enactment, I plan to be both an active manager of 
organizational resources and a strong advocate for the organization's 
mission. In supporting the Secretary and Deputy Secretary of Defense in 
their decisionmaking on very tough resource allocation issues, I will 
intend to build on my relationships with the DOD senior leadership team 
to help form consensus on priorities and acceptable risks, informed by 
the best possible analysis from CAPE, the Joint Staff, the military 
services, and other stakeholders across the Department.
                             relationships
    Question. If confirmed, what would be your working relationship 
with:
    The Secretary of Defense.
    Answer. The Director of CAPE provides the Secretary and Deputy 
Secretary of Defense unbiased advice, supported by strong analysis, on 
how to make rational trade-offs in a resource constrained environment. 
The Director is the principal advisor to the Secretary for CAPE. If 
confirmed, I will closely interact with the Secretary to ensure his 
directives, goals, and themes are reflected in the programs of DOD.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I will expect to interact with the Deputy 
Secretary to provide unbiased recommendations concerning resource 
allocation, programmatic alternatives, and cost assessments.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Acquisition, Technology, and Logistics) to ensure that 
acquisition plans and decisions are appropriately supported with 
accurate and unbiased estimates of the costs to develop and procure 
weapon systems. The CAPE director must also provide the USD(AT&L) 
frequent input about the viability, execution ability, and 
affordability of programs that support the national military strategy.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Comptroller) to ensure the necessary integration of 
developing the Future Years Defense Program with budget plans.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Intelligence) to coordinate assessments of special access 
and compartmented intelligence programs since the CAPE Director has 
oversight of all DOD resource allocation, including intelligence 
programs. The central importance and complexity of intelligence to our 
tactical, operational, and strategic operations requires regular 
interactions with the primary intelligence official, and his staff.
    Question. The Joint Requirements Oversight Council.
    Answer. If confirmed, I will work as an advisor to the Joint 
Requirements Oversight Council for assessing the resource requirements 
and programmatic risk of desired capabilities. I will not be a member 
of the Joint Requirements Oversight Council (JROC), however I will 
attend meetings and provide assessments of programs if invited. The 
importance of requirements to the acquisition process makes interaction 
with the JROC members a key imperative for the Director of CAPE.
    Question. The Defense Business Systems Management Committee 
(DBSMC).
    Answer. If confirmed, I will ensure regular interaction with the 
DBSMC, providing assessments and advice.
    Question. The Director of Operational Test and Evaluation (DOT&E).
    Answer. If confirmed, I will ensure a close working relationship 
with the Director of DOT&E, and ensure that CAPE and DOT&E freely share 
information and data. I believe that operational testing is critical to 
ensuring that weapon systems developed within DOD meet requirements, 
are reliable, and are cost effective. Careful consideration of 
operational testing results often point to weaknesses inherent in 
programs that impact costs, as well as pointing to considerations 
important for later programs.
    Question. The Service Secretaries.
    Answer. Service Secretaries provide critical oversight of their 
departments, particularly regarding plans, programs, and policies. 
Based on more than 4 years of experience as part of Service-level 
leadership, I have a good understanding of the critical role that the 
Services and Military Departments play in the efficient and effective 
functioning of the defense establishment. If confirmed, I will endeavor 
to establish close working relationships with Service Secretaries, 
working together to solve key problems relating it each Service.
    Question. The Chiefs of Staff of the Military Services.
    Answer. Service Chiefs have responsibilities to organize, man, 
train, and equip their services to meet warfighting requirements and 
support combatant commanders. Their title 10 responsibilities for 
planning and programming of resources, as well as to develop 
acquisition programs, ensure regular interaction between the Director 
of CAPE and Chiefs of Staff of the Military Services. If confirmed, I 
will ensure that I quickly develop close working relationships with 
Service Chiefs in order to jointly meet the many challenges within DOD.
    Question. The combatant commanders.
    Answer. The combatant commanders are the key consumers of the 
``products'' developed in the Pentagon--the forces, programs, and other 
capabilities necessary to implement the National Security Strategy. If 
confirmed, I will endeavor to understand the needs of the combatant 
commanders and to advocate for the programs that support their 
requirements most efficiently and effectively. I will ensure that I 
know and react to their needs.
    Question. The heads of the Defense agencies.
    Answer. The Defense agencies have responsibilities to develop 
programs and budget to meet their requirements. If confirmed, I will be 
sensitive to the needs of the Defense agencies and be available to help 
address their challenges.
    Question. The service acquisition executives.
    Answer. If confirmed, I will work closely with service acquisition 
executives to provide analysis, to meet the challenges of troubled 
programs and if required, develop alternatives to meet Defense needs.
    Question. The program executive officers and program managers of 
major defense acquisition programs.
    Answer. If confirmed, I will work closely with program executive 
officers and program managers to provide analysis to help meet the 
challenges of troubled programs and if required, develop alternatives 
to meet Defense needs.
    Question. The cost estimating offices of the Military Departments.
    Answer. If confirmed, I will ensure a close working relationship 
with the cost estimating offices of the Military Departments, ensuring 
that independent cost estimates fully represent the Service acquisition 
plans. The cost estimating offices of the Military Departments provide 
the baseline data and plans that form the basis for cost estimates for 
acquisition programs, and I believe that close collaboration between 
CAPE and the service cost estimating agencies is especially helpful 
when it comes to sharing analytic best practices, building robust data 
sets necessary for developing good cost estimating relationships, and 
testing critical assumptions that underpin program cost estimates.
                       organization and staffing
    Question. What steps do you believe you will need to take, if 
confirmed, to ensure that the office of the Director of CAPE is fully 
functional and organized in a manner consistent with statutory 
requirements?
    Answer. If confirmed, I will continue to implement and refine the 
strategic plan to transition the organization into fulfilling its 
expanded roles and responsibilities in a way that both meets the intent 
of WSARA and the needs of the Department. I will review the 
organization to determine whether or not additional staff will be 
needed along with organizational changes to fulfill the expanded CAPE 
responsibilities and fully comply with the statutory requirements of 
WSARA.
    Question. Do you see the need for any changes in the structure, 
organization, or reporting relationships of the office of the Director 
of CAPE?
    Answer. Not at this time. If confirmed, I will evaluate the current 
structure, organization, and reporting relationships of the office of 
the Director of CAPE and recommend adjustments, if needed. If 
confirmed, I will assess these issues and recommend changes as 
necessary.
    Question. Section 139c(d)(8) of title 10, U.S.C., requires the 
Director of CAPE to lead ``the development of improved analytical 
skills and competencies within the CAPE workforce of the Department of 
Defense.'' Section 2334(f) of title 10, U.S.C., requires the Secretary 
of Defense to ensure that the Director of CAPE has sufficient staff of 
military and civilian personnel to enable the Director to carry out the 
duties and responsibilities of the Director under this section.''
    Do you believe that the office of the Director of CAPE currently 
has sufficient staff of appropriately qualified and trained personnel 
to carry out its duties and responsibilities?
    Answer. It is my understanding that along with the reorganization, 
when Program Analysis and Evaluation transformed into CAPE as mandated 
by WSARA, there was a transformation of the managerial style. The goal 
of this managerial shift was to move to a more agile and flexible 
organizational structure and enable CAPE to provide the capability to 
carry out its duties and responsibilities without the growth in 
personnel that was initially expected. If confirmed, I will move 
rapidly to evaluate the management and staffing of CAPE and take 
appropriate steps to ensure that CAPE will continue to help the 
Department realize the program performance goals established by the 
President and Congress.
    Question. What steps do you plan to take, if confirmed, to assess 
the staffing needs of your office and ensure that you have sufficient 
staff of appropriately qualified and trained personnel to carry out 
your duties and responsibilities?
    Answer. If confirmed, I will review the assessments and planning 
done to date, and will provide further guidance as required to ensure 
continued adherence to WSARA.
    Question. What is your view of the current staffing of cost 
assessment and cost estimating functions of the Military Departments 
and defense agencies?
    Answer. The cost estimating workforce is distributed among several 
organizations throughout the Department. Consequently, identifying and 
remedying issues with the size, education experience and organization 
of the DOD cost estimating workforce requires an integrated and 
collaborative effort, with the Director, CAPE as the leader and primary 
advocate for the entire DOD cost community. Efforts toward that end 
began last year with activities to gather data on the workforce size, 
grade, and demographics, as well as experience and education levels. 
Beyond that, there is interest in measuring projected workload volume 
and content (i.e., what the cost assessment community is actually 
doing), to help assess whether scarce resources are properly focused on 
strategic priorities. However, these efforts are currently suspended, 
due to the tremendous uncertainty in the projected DOD budget and 
personnel levels. OSD and the Military Departments are for the most 
part currently operating under a hiring freeze, and face the 
possibility of civilian furloughs or reductions. I intend to resume 
these activities next year if there is more stability in the budget 
environment. From my Air Force experience, the Air Force is currently 
short approximately 200 cost estimating billets based on an Air Force 
manpower study.
    Question. If confirmed, what role if any do you expect to play in 
ensuring that the cost assessment and cost estimating functions of the 
Military Departments and defense agencies have sufficient staff of 
appropriately qualified and trained personnel to carry out their duties 
and responsibilities?
    Answer. In my view, the CAPE has made appropriate use of the 
expertise and resources of the Military Departments, especially in the 
area of data collection. The Military Departments have undertaken a 
long-term initiative to collect actual operating and support cost 
information through the VAMOSC systems. This has resulted in better 
quality cost estimates throughout the Department. For Milestone 
reviews, CAPE instituted a policy that a signed, dated service cost 
estimate must be delivered to the CAPE prior to delivery of an ICE 
which gives CAPE a point of departure and cross-check. This increased 
rigor has resulted in overall better cost estimates prepared by the 
Military Departments. Also, during the Department's Program Budget 
Review, CAPE teams with the Military Departments to ensure MDAP/MAIS 
programs are funded to the appropriate, defendable, and realistic cost 
estimate.
    Question. In your view, has the office of the Director of CAPE been 
making appropriate use of the expertise and resources of the cost 
assessment and cost estimating offices of the Military Departments and 
Defense Agencies?
    Answer. I am aware of the coordination between CAPE and the other 
DOD offices. I believe that close collaboration between CAPE and the 
service cost estimating agencies is especially helpful when it comes to 
sharing analytic best practices, building robust data sets necessary 
for developing good cost estimating relationships, and testing critical 
assumptions that underpin program cost estimates. If confirmed, I will 
ensure that CAPE maintains the statutorily required independence in its 
cost estimates, while partnering to the fullest extent possible with 
the cost estimating offices of the Military Departments, so that the 
Department receives the best possible cost estimates.
                        impact of sequestration
    Question. What impact do you expect sequestration (and the 
Secretary's directive to reduce staffing by 20 percent) to have on the 
organization and staffing of the office of the Director of CAPE?
    Answer. I understand that the process for addressing the directive 
within CAPE is ongoing, and at this time, I do not have sufficient 
knowledge to offer a complete assessment of the impact. However, if 
confirmed, I will quickly evaluate the organization and staffing and 
take appropriate steps to ensure that CAPE's staff will remain able to 
meet the performance goals established by the President and Congress.
    Question. What impact do you expect these measures to have on the 
office's ability to carry out its statutory duties, including the 
requirement to provide cost estimates for all major defense acquisition 
programs?
    Answer. I do not have sufficient knowledge to offer a complete 
assessment of the impact at this time. However, if confirmed, I will 
quickly evaluate the staffing and take appropriate steps to ensure that 
CAPE is resourced to carry out all statutory duties.
    Question. What impact do you expect sequestration to have on the 
costs of major defense acquisition programs (including multi-year 
contracts for such programs)?
    Answer. Impacts will vary from program to program and will depend 
on many variables. It is reasonable, though, to assume some program 
unit costs will increase as orders are reduced to meet the funding 
levels mandated by sequestration. Budget instability makes it difficult 
to take advantage of the cost savings gained in multi-year procurement 
strategies. It is my understanding that CAPE and the Services are 
already working to identify the risks posed by sequester-level 
reductions. If confirmed, I will work to proactively address and 
mitigate issues that may arise.
    Question. Do you foresee a need for new or revised cost estimates 
for such programs to take into account the impact of sequestration?
    Answer. Yes. Cost estimates are regularly revised as programs pass 
through milestone events or experience significant changes. It is my 
understanding that sequestration impacts are currently being (and will 
continue to be) captured in updates to existing cost estimates.
                          acquisition process
    Question. What is your understanding of the role of the Director of 
CAPE in the acquisition process?
    Answer. It is my understanding that the Director of CAPE plays 
multiple key roles in the acquisition process. The Director is 
responsible for providing guidance and oversight for Analyses of 
Alternatives to ensure that the Department considers the full range of 
program and non-materiel alternatives that could provide the needed 
military capabilities, as quickly as possible, at the lowest possible 
cost. The Director is also responsible, throughout the entire 
acquisition process, for ensuring that program cost and schedule 
estimates are properly prepared and considered in the Department's 
deliberations on major acquisition programs. The Director also is 
responsible for assessing whether a program is likely to achieve the 
desired capabilities.
    Question. What is your view of the significance of sound, unbiased 
cost estimating throughout the acquisition process?
    Answer. It is my personal view and clearly the view of the authors 
of WSARA, that independent, rigorous, unbiased cost and schedule 
estimates, paired with thorough risk assessments, are essential for 
effective acquisition decisionmaking and oversight. Achieving the goal 
of reducing cost and schedule growth in the Department's portfolio of 
acquisition programs requires that good cost estimates be available and 
considered throughout the acquisition process.
    Question. What is your understanding of the role of the Director of 
CAPE in the requirements and resource-allocation processes?
    Answer. The Director is an advisor to the Joint Requirements 
Oversight Council for assessing the resource requirements and 
programmatic risk of a desired capability. The Director is primarily 
responsible for executing the planning and programming phases of the 
Department's planning, programming, budgeting, and execution system, 
and coordinates closely with the Under Secretary of Defense 
(Comptroller) throughout the budget and execution stages of that 
process.
    Question. Do you see the need for any additional processes or 
mechanisms to ensure coordination between the budget, acquisition, and 
requirements systems of DOD and ensure that appropriate trade-offs are 
made between cost, schedule, and performance requirements early in the 
acquisition process?
    Answer. If confirmed, I intend to use the authorities granted by 
WSARA to ensure that programs are properly initiated and are postured 
for success. I will evaluate and recommend adjustments, as needed, to 
facilitate informed discussion of trade-offs.
    Question. Do you see the need to review the existing processes and 
mechanisms to determine those parts of the process which do not 
contribute significant or, on balance, create adequate value to the 
system?
    Answer. I understand that CAPE is an important participant in the 
acquisition process and also believe that achieving significant 
efficiencies in headquarters operations will require redesigning 
processes to be less labor intensive and timeconsuming. For many 
acquisition programs in development or production lengthening schedules 
can drive significant cost increases. If confirmed, I will evaluate and 
look to improve CAPE's role in the DOD 5000 processes while adhering to 
the requirements of WSARA.
    Question. Do you believe that the current investment budget for 
major systems is affordable given increasing historic cost growth in 
major systems, costs of current operations, the need for asset 
recapitalization, and the impact of sequestration?
    Answer. Given the current reality of sequestration, all major 
systems budgets will need to be re-evaluated. While there are some 
preliminary indications that recent reforms may have helped slow 
weapons system cost growth, much work remains to be done. Additionally, 
the slow process of reducing costs for personnel and infrastructure, as 
laid out by the Strategic Choices and Management Review, means that 
investment and readiness may have to significantly decrease in the next 
several years in order to achieve the reduced funding levels mandated 
by the sequester. If confirmed, I would intend to focus attention on 
analyzing trade-offs between the current investment budget and the 
other pressures on resources across the entire Department.
    Question. If not, what role do you see for the Director of CAPE in 
addressing this issue?
    Answer. If confirmed, I will evaluate these trade-offs and 
recommend adjustments, if needed, and provide management direction as 
necessary to ensure that we have an affordable, long-term investment 
strategy.
    Question. Many acquisition experts attribute the failure of DOD 
acquisition programs to a cultural bias that routinely produces overly 
optimistic cost and schedule estimates and unrealistic performance 
expectations. As Senator Levin explained at a June 2008 hearing, 
``contractors and program offices have every reason to produce 
optimistic cost estimates and unrealistic performance expectations, 
because programs that promise revolutionary change and project lower 
costs are more likely to be approved and funded by senior 
administration officials and by Congress.''
    Do you agree with the assessment that overly optimistic cost and 
schedule estimates and unrealistic performance expectations contribute 
to the failure of major defense acquisition programs?
    Answer. Yes.
    Question. What steps if any would you take, if confirmed, to ensure 
that the Department's cost, schedule and performance estimates are 
realistic?
    Answer. To ensure the Department's cost, schedule and performance 
estimates are realistic, it is important to have a systematic and 
institutionalized cost data collection throughout DOD to support 
estimates for current and future acquisition programs. The Defense Cost 
and Resource Center (DCARC) is the OSD office responsible for 
administrating the CSDR system, used for acquisition cost data. I 
understand from my AFCAA staff that this year, the DCARC continued to 
update and strengthen the procedures, report formats, and detailed 
implementation guidance for CSDR. Additionally, CAPE's annual report 
has found that the quality of the cost estimates for MDAPs provided by 
the military departments continued to improve this year due to the 
increase quality of data.
    In addition, as part of the Department's program and budget review 
process, CAPE--in conjunction with USD(AT&L)--reviewed each acquisition 
program with significant funding changes from the latest baseline or 
prior year's President's budget to determine the source of the cost 
estimate supporting the revised program and to ensure that the program 
remained fully funded. This process of tracking to the approved 
estimate will be even more important in the future, as the Department 
faces significant funding constraints, resulting in more reductions to 
program quantities and annual procurement rates, and more pressures to 
budget programs at less than full funding.
    Question. Do you believe that early communication between the 
acquisition, budget and requirements communities in DOD can help ensure 
more realistic cost, schedule, and performance expectations?
    Answer. Yes.
    Question. If so, what steps if any would you take, if confirmed, to 
assist in such communication?
    Answer. I do not yet have a detailed plan for changes to the early-
stage acquisition communication and decision process. If confirmed, I 
would consult with relevant stakeholders to understand the full range 
of considerations. I understand that CAPE has played an important role 
in facilitating joint deliberations between the acquisition, 
requirements, and PPBE processes and remain committed to improved 
sharing of information between these communities to enhance 
transparency within the Department.
    Question. In the Budget Blueprint that supported the fiscal year 
2010 President's budget request, the administration committed to 
``set[ting] realistic requirements and stick[ing] to them and 
incorporat[ing] `best practices' by not allowing programs to proceed 
from one stage of the acquisition cycle to the next until they have 
achieved the maturity to clearly lower the risk of cost growth and 
schedule slippage.''
    What role do you see for the Director of CAPE in helping to ensure 
that the Department makes good on this commitment?
    Answer. The Director is the principal official in DOD responsible 
for cost and schedule estimation and for assessing expected program 
effectiveness.
    Question. Over the last several years, the Government 
Accountability Office (GAO) has prepared a series of reports for this 
committee comparing the DOD approach to the acquisition of major 
systems with the approach taken by best performers in the private 
sector. GAO concluded that private sector programs are more successful 
because they consistently require a high level of maturity for new 
technologies before such technologies are incorporated into product 
development programs. The Department has responded to these findings by 
adopting technological maturity goals in its acquisition policies.
    How important is it, in your view, for the Department to mature its 
technologies with research and development funds before these 
technologies are incorporated into product development programs?
    Answer. In my view it is critical for programs to reach the 
appropriate level of maturity before proceeding to the next acquisition 
stage.
    Question. What role do you see for the Director of CAPE in helping 
to ensure that the key components and technologies to be incorporated 
into major acquisition programs meet the Department's technological 
maturity goals?
    Answer. If confirmed, I will ensure that technology risks and 
maturity levels are fully incorporated in the cost and schedule 
assessments, including Independent Cost Estimates, prepared for all 
major programs.
    Question. DOD has increasingly turned to incremental acquisition 
and spiral development approaches in an effort to make cost, schedule, 
and performance expectations more realistic and achievable.
    Do you believe that incremental acquisition and spiral development 
can help improve the performance of the Department's major acquisition 
programs?
    Answer. Yes. I believe that incremental acquisition and spiral 
development can be one effective way to reduce acquisition risk and 
should be considered when appropriate across DOD's portfolio of 
acquisition programs.
    Question. In your view, has the Department's approach to 
incremental acquisition and spiral development been successful? Why or 
why not?
    Answer. I believe that the use of this approach must be considered, 
on a case-by-case basis, with all factors assessed and weighed in the 
decision. If confirmed, I will advocate for the consideration and 
evaluation of spiral development and incremental acquisition strategies 
in applicable situations. There have been improvements in the 
Department's acquisition performance after the enactment of WSARA. For 
example, the number of Nunn-McCurdy breaches has steadily decreased 
since fiscal year 2010, with only three significant breaches and no 
critical breaches in fiscal year 2013. Also, since passage of WSARA, 
the Analysis of Alternatives (AoA) appear to have improved due to 
improvements in AoA guidance, study plans, and compliance.
    Question. What steps if any do you believe are needed to ensure 
that the requirements process, budget process, and testing regime can 
accommodate incremental acquisition and spiral development approaches?
    Answer. I do not have sufficient knowledge to offer a detailed 
assessment at this time; however, I believe that these areas need to be 
flexible enough to support incremental acquisition and spiral 
development approaches.
    Question. How should the Department ensure that the incremental 
acquisition and spiral development programs have appropriate baselines 
against which to measure performance?
    Answer. The Department is required to prepare and measure 
performance against rigorous acquisition program baselines for major 
acquisition programs, including acquisition programs that employ these 
concepts. If confirmed, I will ensure realistic independent cost and 
schedule estimates are prepared for all major acquisition programs, 
including the programs that employ these concepts.
    Question. The poor performance of major defense acquisition 
programs has also been attributed to instability in funding and 
requirements. In the past, DOD has attempted to provide greater funding 
stability through the use of multi-year contracts. More recently, the 
Department has sought greater requirements stability by instituting 
Configuration Steering Boards to exercise control over any changes to 
requirements that would increase program costs.
    What are your views on multi-year procurements? Under what 
circumstances do you believe they should be used?
    Answer. In general, I believe that multi-year procurement 
strategies can result in savings. I recognize that multi-year contracts 
offer the possibility of cost savings from economic order quantities. 
If confirmed, I will ensure the CAPE organization prepares unbiased 
analyses to quantify the resultant savings from the use of multi-year 
procurement strategies, and to assess the impact on the Department of 
reductions in acquisition and budget flexibilities.
    Question. What is your opinion on the level of cost savings that 
constitute ``substantial savings'' for purposes of the defense multi-
year procurement statute, 10 U.S.C. Sec. 2306b?
    Answer. It is my understanding that CAPE provides the estimates of 
the savings to be achieved by multi-year procurements, and that the 
Under Secretary of Defense for Acquisition Technology and Logistics 
determines if the savings are substantial. I understand that past 
practice and Congressional guidance has often focused on 10 percent as 
a cost savings threshold for justifying multi-year procurements. While 
10 percent is often a reasonable standard the merits of the multi-year 
procurements should be considered on a case-by-case basis. I believe 
that such consideration should include the potential trade-off between 
cost savings and reductions in acquisition and budget flexibilities. 
Sometimes less than 10 percent savings may suffice for a program, while 
at other times retaining budgetary flexibility may argue for foregoing 
a multi-year that could generate more than 10 percent cost savings.
    Question. Under what circumstances, if any, do you believe that a 
multi-year contract should be used for procuring weapons systems that 
have unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes but which might otherwise comply 
with the requirements of the defense multi-year procurement statute, 10 
U.S.C. Sec. 2306b?
    Answer. I believe multi-year strategies should be evaluated on a 
case-by-case basis, and past program performance is one key factor in 
deliberations on possible employment of multi-year procurement 
strategies.
    Question. How would you analyze and evaluate proposals for multi-
year procurement for such programs?
    Answer. If confirmed, I will ensure that proposals for multi-year 
procurement will be carefully and fairly assessed and then compared 
with acquisition strategies that do not employ multi-year procurement. 
In evaluating those projections, I will also ensure that multi-year 
savings projections are compared with actual savings achieved from 
historical programs.
    Question. If confirmed, what criteria would you apply in assessing 
whether procuring such a system under a multi-year contract, is 
appropriate and should be proposed to Congress?
    Answer. Among other issues, I would recommend including a review of 
all statutory and regulatory requirements and an assessment of the 
trade-offs between cost savings and reductions in acquisition and 
budget flexibilities. The specific implementation would likely vary 
from program to program.
    Question. Under what circumstances, if any, should DOD ever break a 
multi-year procurement?
    Answer. In my view, exceptional circumstances that lead to the 
break of a multi-year procurement should be carefully considered case 
by case. Some factors that would warrant this consideration could 
include dramatic changes to the national security situation, 
significant changes to the fiscal environment facing DOD, or 
significant changes in the acquisition program itself.
    Question. What other steps, if any, would you recommend taking to 
increase the funding and requirements stability of major defense 
acquisition programs?
    Answer. If confirmed, I will take actions in concert with USD(AT&L) 
to ensure that independent cost estimates developed or approved by the 
Director are fully funded in the Future Years Defense Program, that 
changes to programs and cost estimates are properly tracked over time, 
that program cost performance is tracked consistent with the metrics 
specified in WSARA, and that proposed changes to programs that 
influence costs are fully evaluated and considered prior to 
implementation of changes to programs.
    If confirmed, I will also recommend a careful examination of the 
Operations and Support costs for the Department. Optimistic forecasts 
of these costs sometimes contribute to instability in acquisition 
programs by demanding a greater percentage of available resources than 
originally expected, thereby undermining acquisition plans. 
Realistically funding these accounts, and controlling cost growth where 
possible, may help stabilize mid- and long-term acquisition plans.
    Question. The JROC recently issued guidance which ``encourages 
Program Managers, Program Executive Officers and Component Acquisition 
Executives, in coordination with the requirements sponsor, to 
officially request requirements relief, through the appropriate 
requirements validation authority, where Key Performance Parameters 
(KPP) appear out of line with the appropriate cost-benefit analysis.'' 
The JROC stated ``[w]hile there are no limitations for requesting 
requirement relief, KPP relief should be considered especially 
appropriate in cases where significant cost savings may be achieved 
with marginal impact on operational capability (i.e., spending 15 
percent of a program's budget to get the last 3 percent of KPP 
performance).''
    Do you support the new JROC guidance?
    Answer. Yes. I believe that if a KPP of a program is out of line 
with an appropriate cost-benefit analysis, it is proper to consider 
granting relief to correctly align the cost to the capability. Refining 
requirements can be highly beneficial to achieving balance between 
cost, schedule, and performance. Despite the benefit of reduced costs, 
we must ensure that we are not placing unacceptable risk on the 
warfighter in order to relax requirements.
    Question. Are there additional changes the JROC should consider, in 
your view?
    Answer. I am not aware of the need to make any additional changes 
or improvements to the JROC guidance at this time.
    Question. The current acquisition system is intended to avoid 
fragmentation by providing that program managers report only to program 
executive officers, who report only to service acquisition executives, 
who are subject to the management and supervision of the Under 
Secretary of Defense for Acquisition, Technology, and Logistics.
    Do you support the chain of command for the acquisition system, as 
currently structured?
    Answer. I believe the current structure of the acquisition system 
has helped to reduce fragmentation in the process. If confirmed, I will 
work with the service acquisition executives and the Under Secretary of 
Defense for Acquisition, Technology, and Logistics to seek out ways to 
further reduce fragmentation and other inefficiencies in the 
acquisition system.
    Question. The Independent Panel charged with reviewing the 2010 
Quadrennial Defense Review recommended increasing the role of the 
respective services in the management of acquisition programs through a 
system called ``In-Line Management.'' Specifically, the recommendation 
called for increasing the role of the Service Secretaries in the 
acquisition process. In addition, the Defense Business Board's (DBB) 
fiscal year 2012 report titled: Linking and Streamlining the Defense 
Requirements, Acquisition and Budget Process also advocated for the 
``Military Service Chief'' to have a greater role in the acquisition 
process.
    What are your thoughts about value of increasing the management 
responsibilities of Service Secretaries and Service Chiefs in the 
acquisition process?
    Do you believe adding the Service Secretaries and Chiefs of Staff 
to the acquisition chain of command would help address the underlying 
causes of cost, schedule, and performance problems in the acquisition 
system?
    Do you believe that such a change would increase, or decrease, 
fragmentation of authority in the acquisition system?
    Answer. To ensure optimal use of funds provided to the Department, 
it is critical to minimize cost, schedule, and performance problems. I 
believe the key to minimizing these problems is identifying the correct 
requirements early in the process, influenced by an unbiased, realistic 
assessment of their viability. The experience and insights of the 
Service Chiefs and Secretaries would be very helpful in discussions of 
requirement trade-offs and continued relevance. Based on a preliminary 
assessment, I support the Department's response to the DBB 
recommendation and I would welcome an increased role for the Service 
Chiefs and Secretaries in the process. If confirmed, I would expect to 
have more firsthand experience and develop a more fully informed view.
    This would require close, early alignment between CAPE, the 
Services, the JROC, and the Under Secretary of Defense for Acquisition 
and Technology.
                            cost assessment
    Question. Section 2334 of title 10, U.S.C., requires the Director 
of CAPE to prescribe policies and procedures for the conduct of cost 
estimation and cost analysis for the acquisition programs of DOD.
    What are the major issues that you believe should be addressed in 
policies and procedures for the conduct of cost estimation and cost 
analysis for DOD acquisition programs?
    Answer. CAPE policy should enforce consistent methodologies, 
improve education and training, define process timelines, enhance risk 
analysis, and identify roles and responsibilities for cost estimating 
across the weapon system life cycle. Consistent cost estimating methods 
across departments, coupled with a trained workforce employing those 
methods, reduces review time, reconciliation, and associated rework 
which can save schedule time for acquisition programs and reduce costs.
    Question. What is your view of DOD policies and procedures 
currently in place for the conduct of cost estimation and cost analysis 
for DOD acquisition programs? Are there any significant gaps that you 
would like to fill or significant changes that you would like to make?
    Answer. The current DOD policies and procedures are being updated 
to codify the requirements of WSARA. CAPE is now working to complete 
DOD Manual 5000.04-M, Cost Analysis Guidance and Procedures. This 
Manual will be the primary vehicle for implementing the cost assessment 
provisions of WSARA. In particular, it will provide guidance to the 
military departments and defense agencies concerning the preparation, 
presentation, and documentation of life-cycle cost estimates for 
defense acquisition programs
    Question. Section 2334(a)(6) requires the Director to conduct 
independent cost estimates and cost analyses for certain major defense 
acquisition programs and major automated information system programs at 
key points in the acquisition process and ``at any other time 
considered appropriate by the Director or upon the request of the Under 
Secretary of Defense for Acquisition, Technology, and Logistics.''
    In your view, does the office of the Director currently have the 
staffing and resources necessary to perform this function, or will 
additional resources be required?
    Answer. If confirmed, I will quickly evaluate the staffing and 
resource levels and take appropriate steps to ensure that CAPE's cost 
assessment staff will be fully able to continue to help the Department 
realize the aggressive program performance goals established by the 
President and Congress.
    Question. What is your view of the extent to which it would be 
appropriate to use Federally Funded Research and Development Centers or 
other contractors to assist in this function?
    Answer. It is my understanding that the Department is still working 
to reestablish the capabilities of the government acquisition 
workforce, though the fiscal environment has curtailed much planned 
growth in acquisition workforce capabilities. Even with this trend, 
however, there are numerous functions, such as cost analysis research, 
that an FFRDC or a support contractor could provide to assist the 
Department in meeting its cost estimating requirements provided we 
remain compliant with the 2013 NDAA that requires each MDAP/MAIS lead 
cost estimator be a member of the armed forces or a full-time employee 
of DOD.
    Question. Are there particular points in the acquisition process, 
other than those required by statute, at which you think that 
independent cost estimates and cost analyses would be appropriate?
    Answer. The current acquisition process in the Department is event-
driven and episodic in nature, and is driven primarily by the key 
milestones identified in statute. In my view, the WSARA requirements 
drive the Department to a model involving more continuous involvement 
of the cost analysis community, and this is the approach I have sought 
to follow with AFCAA. If confirmed, I will support a more continuous 
involvement of CAPE in following and tracking program performance, 
updating cost and schedule estimates, and in evaluating new program 
risks as they are identified, though I recognize that resource 
constraints will limit my ability to fully achieve this vision.
    Question. The Director is required to ``[r]eview all cost estimates 
and cost analyses'' conducted by the military departments and defense 
agencies for major defense acquisition programs and major automated 
information system programs other than those covered by section 
2334(a)(6). At certain points in the acquisition process, the Director 
is required to determine whether such estimates are reasonable.
    In your view, does the office of the Director currently have the 
staffing and resources necessary to perform this function, or will 
additional resources be required?
    Answer. If confirmed, I will quickly evaluate the staffing and 
resource levels and take appropriate steps to ensure CAPE's cost 
assessment personnel will be fully able to continue to help the 
Department realize the aggressive program performance goals established 
by the President and Congress. I recognize that all headquarters 
functions across DOD are under pressure to reduce staffing and 
resources and do not expect that CAPE will be exempt from this 
pressure.
    Question. What is your view of the extent to which it would be 
appropriate to use Federally Funded Research and Development Centers or 
other contractors to assist in this function?
    Answer. There are numerous functions, such as cost analysis 
research, that an FFRDC or a support contractor could provide to assist 
the Department in meeting its cost estimating requirements. All the 
Department's cost analysis agencies use contract/FFRDC support to some 
degree. In general, I support the current effort to enhance the 
government's organic cost estimating capability. However, the current 
fiscal pressures will likely result in reductions to both the CAPE 
staff and funding for the contract/FFRDC support.
    Question. What action would you expect to take, if confirmed, if 
you were to determine that a cost estimate or cost analysis conducted 
by one of the military departments or defense agencies in connection 
with a major defense acquisition program or major automated system 
program was not reasonable?
    Answer. If confirmed, in this situation I would direct the Deputy 
Director for Cost Assessment in CAPE to prepare a separate independent 
cost estimate and would recommend that the program not be permitted to 
proceed until the new independent cost estimate was completed, 
considered, and properly funded in the Future Years Defense Program. In 
my experience overseeing AFCAA, I found that situations where Program 
Office Estimates and independent cost estimates were likely to diverge 
greatly could generally be identified in advance and issues avoided by 
bringing analysts together to examine assumptions and models--saving 
time and avoiding unnecessary costs without sacrificing analytic 
independence.
                           program evaluation
    Question. Section 139a (d)(5) of title 10, U.S.C., makes the 
Director of CAPE responsible for ``[r]eview, analysis, and evaluation 
of programs for executing approved strategies and policies, ensuring 
that information on programs is presented accurately and completely.'' 
Section 139a(d)(7) makes the Director responsible for ``[a]ssessments 
of alternative plans, programs, and policies with respect to the 
acquisition programs of the Department of Defense.''
    What is your view of the significance of independent review, 
analysis, and evaluation of programs, and assessments of alternative 
programs, to the effective management of DOD?
    Answer. Independent analyses and evaluation of programs help 
identify underlying risk in programs sometimes not seen in the service 
position--whether cost, schedule or performance risk. I believe that 
identifying these risks and offering the means to mitigate them will 
position the Department leadership to make informed decisions for 
acquiring and resourcing program plans.
    Question. Do you see the need for any changes or improvements to 
the organization, process, or methodology used by the Department for 
such review, analysis, and assessments?
    Answer. I am not aware of the need to make any changes or 
improvements to the process or methodology at this time. It is possible 
that additional decision support will be necessary to fulfill this, 
either via new staff or a reorganization of missions within existing 
staff. However, if confirmed, I will review the process and methodology 
and make recommendations for improvements, as appropriate.
    Question. Does the Director of CAPE have the staffing and resources 
needed to carry out this function?
    Answer. If confirmed, I plan to evaluate the need for the 
organizational changes necessary to fully comply with the intent of the 
legislation and the resulting impact on resources.
    Question. How do you believe that the Director of CAPE should 
interact with Service acquisition executives, program executive 
officers, program managers, and other program officials in preparing 
independent evaluations of major defense acquisition programs?
    Answer. Preparation of independent evaluations of major defense 
acquisition programs is highly dependent on gaining unfettered access 
to information about the programs. I believe that it is incumbent upon 
the Director of CAPE to create strong relationships across the 
Department with service acquisition executives and other program 
subordinates to ensure continued access to this information. At the 
same time, I believe that the Director must make clear that the 
analyses done by the CAPE organization maintain the required 
independence and continue to be unbiased and reliable in developing 
recommendations based on the analyses.
         planning, programming, budgeting, and execution system
    Question. What role do you expect to play, if confirmed, on matters 
relating to the planning and programming phases of the Planning, 
Programming, Budgeting, and Execution (PPBE) system?
    Answer. I expect that I will be one of Secretary Hagel's closest 
advisors on all program evaluation matters. Further, I expect that I 
will coordinate the performance of the Program Review and ensure a 
close working relationship with the Under Secretary of Defense 
(Comptroller) as he coordinates the performance of the Budget Review. 
In my role I expect to analyze, evaluate, and provide alternative plans 
and programs for U.S. defense objectives and evaluate programs to 
ensure execution of approved strategies and policies. I anticipate 
performing critical reviews of requirements, capabilities, and life-
cycle costs of current and proposed defense programs, with an eye 
toward making recommendations and identifying options for the Secretary 
of Defense.
    Question. What role do you expect to play, if confirmed, in the 
preparation of materials and guidance for the PPBE system?
    Answer. If confirmed, I will direct preparation for overarching 
guidance for the programming phase of PPBE. I also expect that I will 
prepare and coordinate closely with the Under Secretary of Defense 
(Comptroller) in the preparation of Fiscal Guidance to the Defense 
components. Further, I will expect to coordinate with the Under 
Secretary of Defense (Policy) in implementation of strategic policy 
decisions reached through processes such as the Quadrennial Defense 
Review. I expect that I will continue to prepare and deliver to 
Congress the Future Years Defense Program for DOD.
    Question. Do you see the need for any changes or improvements to 
the PPBE system?
    Answer. The PPBE system has seen virtually constant, incremental 
change throughout much of its recent history, but I do not have any 
concrete recommendations to make at this time. If confirmed I will work 
with other stakeholders to ensure that the PPBE system best supports 
the efficient and effective allocation of taxpayer dollars to the 
highest national security priorities of DOD.
                        analyses of alternatives
    Question. The Director of CAPE is responsible for the formulation 
of study guidance for analyses of alternatives for major defense 
acquisition programs and the performance of such analyses, as directed 
by the Secretary of Defense.
    Do you believe that DOD has been making appropriate use of AoA in 
connection with major defense acquisition programs?
    Answer. While at this time I do not have sufficient knowledge to 
offer an assessment of the Department's use of AoAs, I believe analyses 
of alternatives can identify areas where trade-offs can be made to 
reduce cost, schedule, and performance risk.
    Question. Do you see the need for any change in the timing, 
content, or approach that the Department takes to analyses of 
alternatives in connection with major defense acquisition programs?
    Answer. No. The AoAs is usually done prior to Milestone A, thereby 
offering the earliest opportunity to influence the acquisition strategy 
and program content. If confirmed, I will ensure that the AoAs 
continues to be updated, as appropriate, as the program proceeds to a 
full-rate production decision.
    Question. Do you believe that the office of the Director of CAPE 
and other relevant components of the Department are appropriately 
organized and staffed to carry out effective analyses of alternatives 
in connection with major defense acquisition programs?
    Answer. Properly organized, yes. If confirmed, I will quickly 
evaluate and take appropriate steps to ensure that CAPE is properly 
organized to fulfill the responsibilities and fully comply with the 
statutory requirements of WSARA.
                      operating and support costs
    Question. Section 2334(e) of title 10, U.S.C., requires the 
Director to review and report on existing systems and methods of DOD 
for tracking and assessing operating and support costs on major defense 
acquisition programs.
    Do you think that the Department is currently doing an adequate job 
of estimating operating and support costs for major defense acquisition 
programs?
    Answer. I appreciate the challenges of estimating operating and 
support costs of increasingly complex weapon systems with ever-changing 
operational missions. The WSARA of 2009 requires a review of systems 
and methods used for developing estimates of operating and support 
costs. It is my understanding that a division has been established in 
CAPE to analyze the adequacy of systems and methods used for developing 
estimates of operating and support costs. If confirmed, I will review 
their analyses and recommend adjustments, if needed.
    Question. Do you think that the Department is currently doing an 
adequate job of tracking and assessing operating and support costs for 
major defense acquisition programs?
    Answer. I recognize that effective systems and methods must be in 
place to ensure that budgets and programs reflect the most current 
experience in operating and support costs. The WSARA of 2009 requires a 
review of systems and methods used for tracking and assessing operating 
and support costs. In my role as the Assistant Secretary of the Air 
Force for Financial Management and Comptroller, an Operating and 
Support estimating division was created in AFCAA to perform independent 
assessments of the operating and support costs of AF major defense 
acquisition programs. It is my understanding that a new division has 
been established in CAPE that will track and assess operating and 
support costs for major defense acquisition programs. If confirmed, I 
will review their analyses and recommend adjustments, if needed.
    Question. What would be your view of a ``Nunn-McCurdy''-type system 
for programs that substantially exceed estimates for operating and 
support costs?
    Answer. I understand the importance of controlling the operating 
and support costs of our major weapon systems. I also know that this is 
a complicated problem--many factors contribute to increases in 
operating and support cost growth. I am advised that the CAPE 
directorate has worked to assess the feasibility and advisability of 
establishing some form of baseline for operating and support costs, as 
required in the Weapon System Acquisition and Reform Act of 2009. 
Increased visibility of operations and support costs is very important 
to enable management action to contain costs, regardless of whether a 
formal breech process is established. If confirmed, I will make a 
review of the team's progress on this question a near-term priority.
    Question. What is your view on the role that the office of the 
Director of CAPE does and should play in assessing operating and 
support costs on major defense acquisition programs?
    Answer. I recognize that operating and support costs are a 
significant driver to both major defense acquisition program costs and 
the department's budget. The Weapon System Acquisition and Reform Act 
of 2009 requires CAPE to ensure that the cost estimation and cost 
analysis processes of the department provide accurate information and 
realistic estimates of costs for acquisition programs. I understand a 
new division in CAPE has been established that will track and assess 
operating and support costs for major defense acquisition programs. I 
am also aware that an operating and support cost estimating guide has 
been written and that the Department maintains operating and support 
cost databases. If confirmed, I will review their analyses and 
activities and recommend adjustments, if needed while partnering with 
USD(AT&L) to make operating and support costs more visible in the 
milestone decision process.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Director of CAPE?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
        coordination of requirements, acquisition and budgeting
    1. Senator Inhofe. Dr. Morin, in a July 3, 2013, letter to Congress 
General Dempsey, ``acknowledged the need to improve coordination among 
the requirements, acquisition and budgeting process.'' Toward that end 
a ``quarterly leadership forum'' was created which includes the Cost 
Assessment and Program Evaluation (CAPE) Director. General Dempsey 
wrote: ``The Department will use this forum to ensure roadblocks are 
promptly addressed, continue ongoing efforts to better align 
requirements and acquisition processes and further engage Service 
Chiefs in the acquisition process.'' If confirmed, what do you view as 
your role on the forum?
    Dr. Morin. It is my understanding that the Quarterly Leadership 
Forum is a series of meetings dedicated to improving the coordination 
between the requirements, acquisition, and budgeting processes. 
Attendees include the leadership of the Joint Staff, the Under 
Secretary of Defense for Acquisition, Technology and Logistics, and the 
Director of CAPE. The explicit purpose of these meetings is to link the 
requirements, acquisition, and budgetary processes to help provide 
timely delivery of warfighter capabilities at a reasonable cost.
    I have not participated in this forum in my current role, but if 
confirmed will look forward to taking part and contributing CAPE's 
insights to the group. I believe CAPE insights will include ensuring 
lessons are incorporated into the processes to enable the Department to 
more easily recognize and break through process-driven impediments to 
the development and fielding of warfighter capabilities in an effective 
and timely manner.
    The ability of the DOD leadership to coordinate requirements, 
acquisition, and budgeting has been strained due to the enormous fiscal 
uncertainty facing the Department, which makes frank and timely 
discussions across these communities all the more important.

    2. Senator Inhofe. Dr. Morin, what ideas do you think are important 
for the quarterly leadership forum to address and consider?
    Dr. Morin. The Quarterly Leadership Forum should include and 
consider the following ideas:

        <bullet> The importance of streamlining process time and 
        providing clear lines of accountability without sacrificing 
        discipline or key oversight, and
        <bullet> Expectations for rigorous cost estimates and the 
        budgetary discipline to fully fund programs to valid estimates, 
        in line with key priorities.

                        accurate cost estimates
    3. Senator Inhofe. Dr. Morin, to help ensure the Services submit 
more realistic cost estimates CAPE instituted policies requiring 
greater accountability from the Services. These new requirements 
included an obligation for the Services to produce a ``signed'' cost 
estimate to be reviewed by CAPE and to reaffirm the Services commitment 
to fully fund an acquisition program during the preparation of the next 
5-year spending plan. What are your plans and strategies to use the 
capabilities of CAPE to achieve even more savings in the future?
    Dr. Morin. Following the passage of the Weapons System Acquisition 
Reform Act in 2009, I understand CAPE instituted new business processes 
for consideration of cost estimates prepared by the military services 
for major acquisition programs. These processes require: (1) each cost 
estimate be submitted and explained in a signed and dated document; and 
2) financial and acquisition leaders of the military departments 
provide a commitment (to fully fund programs to their Service Cost 
Position in the next Future Years Defense Program. I have seen these 
new processes improve both the accountability and transparency 
associated with the cost estimates prepared in the Military 
Departments.
    If confirmed, I plan to use and expand several ongoing initiatives 
in CAPE to improve the Department's cost estimates and achieve even 
greater savings in the future, specifically through guidance rewrites, 
increased analytical emphasis on multi-year procurements, and 
integration/enhancements of cost collection systems to increase analyst 
productivity. First, I understand CAPE is coordinating with the 
Military Departments to update its manual, DOD 5000.4-M, Cost Analysis 
Guidance and Procedures. Once complete, this update will provide 
authoritative guidance to the military departments and defense agencies 
concerning the preparation, presentation, and documentation of life-
cycle cost estimates for defense acquisition programs, which in turn 
should increase cost analyst efficiency. The new version of DOD 5000.4-
M will focus on identifying decisions that offer the opportunity to 
save money rather than just preparing an independent cost estimate for 
the program of record and stopping there.
    Second, CAPE has instituted a rigorous analytic process to support 
certification of the savings associated with multi-year procurement 
contracts. This process involves direct interaction of CAPE analysts 
with program office personnel, within each of the military departments, 
as well as involvement of cost analysis personnel from the military 
service cost centers and the system commands, to support improved 
understanding of costs in support of negotiation of the best possible 
business contract arrangement for the Department. It also involves 
direct interaction of CAPE with the leadership of the prime contractor 
for the program, to show them the cost analyses and demonstrate the 
strengths and weaknesses of their initial contract proposals. This 
process, which was initiated 3 years ago, has resulted in expected 
contract savings of 10-19 percent on a number of aircraft programs that 
have employed multi-year contracting strategies. I understand CAPE is 
working on a number of other initiatives in this area, and if 
confirmed, I will delve further into these issues.

                     collaboration and partnership
    4. Senator Inhofe. Dr. Morin, the current Director of CAPE stated 
in 2011 that, ``we found cases where the program managers, the 
acquisition executives, the partners in industry and the analysts in 
Cost Assessment and Program Evaluation all working together--those are 
the places where we've seen the most success in program's going 
forward.'' Do you agree with that approach?
    Dr. Morin. I have seen multiple cases where Air Force and CAPE 
analysts have been able to work closely together to develop rigorous, 
independent estimates that are credible to program management and the 
acquisition executives, and which provide a good baseline for budgeting 
and for developing cost savings proposals. Collaboration with industry 
has been very helpful in developing more rigorous and consistent cost 
accounting standards and work breakdown structures for earned value 
management. Early engagement between the various responsible analysts 
and acquisition professionals can help streamline acquisition 
timelines, thereby saving cost.

    5. Senator Inhofe. Dr. Morin, do you believe CAPE should be more 
detached in order to maintain the independence of its analysis?
    Dr. Morin. I believe that the cost assessment team has an 
appropriate level of independence and find their estimates to be 
credible and unbiased. The WSARA statute provides that the CAPE 
Director reports directly to the Secretary and Deputy Secretary of 
Defense and can provide views directly to those leaders without the 
approval of any other official, ensuring that independent views on cost 
estimating are shared directly with top DOD leadership. Continued work 
is required to improve the quality of estimating and hence the accuracy 
and precision with which analysts are able to predict the cost of 
future programs.
                                 ______
                                 
    [The nomination reference of Dr. Jamie M. Morin follows:]
                    Nomination Reference and Report
                               Senate of the United States,
                                                September 11, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jamie Michael Morin, of Michigan, to be Director of Cost Assessment 
and Program Evaluation, Department of Defense, Christine H. Fox, 
resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Jamie M. Morin, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Dr. Jamie M. Morin
Education:
    Georgetown University

        <bullet> September 1993-December 1996
        <bullet> Bachelor of Science in Foreign Service Degree awarded 
        cum laude December 1996
        <bullet> Peter Krogh Scholar of the School of Foreign Service 
        1994-1996

    London School of Economics

        <bullet> September 1997-September 1998
        <bullet> Master of Science in Public Administration and Public 
        Policy Degree awarded with distinction June 1994

    Yale University

        <bullet> September 1998-May 2003
        <bullet> Master of Arts in Political Science awarded May 2001
        <bullet> Master of Philosophy in Political Science awarded May 
        2001
        <bullet> Ph.D. in Political Science awarded May 2003
Employment record:
    U.S. Air Force

        <bullet> Assistant Secretary of the Air Force (Financial 
        Management and Comptroller)
        <bullet> July 2009-present
        <bullet> Acting Under Secretary of the Air Force, July 2012-
        April 2013

    U.S. Senate Committee on the Budget

        <bullet> Senior Defense Analyst
        <bullet> July 2003-July 2009
        <bullet> Additional duties as senior analyst for foreign 
        affairs at various times during this tenure.

    Miller Center for Public Affairs (University of Virginia)

        <bullet> National Fellow in Public Affairs
        <bullet> July 2002-July 2003

    Center for Strategic and Budgetary Assessments

        <bullet> Visiting Fellow
        <bullet> June 2001-September 2001

    J.E. Austin Associates

        <bullet> Economist and Strategy Specialist (May 2000-September 
        2000)
        <bullet> Research Assistant then Research Associate and then 
        Consultant (October 1995-September 1997)
        <bullet> October 1995-September 1997; May 2000-September 2000

    Office of the Secretary of Defense

        <bullet> Intern
        <bullet> June 1999-September 1999
Honors and awards:
    Air Force Meritorious Civilian Service Medal (2013)
    Named a ``Young Global Leader'' by the World Economic Forum's Forum 
of Young Global Leaders (2013)
    Dirksen Center--Congressional Research Award (2003)
    Miller Center (UVA)--National Fellow in Public Affairs (2002-2003)
    Yale University--Yale University Fellowship (1998-2002), 
Dissertation Fellowship (2002-2003)
    Smith-Richardson Foundation--Research Fellowship (2001, 2002)
    Nominated by students for the Yale College Teaching Prize (1999)
    DACOR Bacon House Foundation--Tutthill Fellowship (1997)
    Krogh Scholar, Georgetown University School of Foreign Service 
(1995-1996)
    Eagle Scout, Boy Scouts of America (1992)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate, and certain 
senior military officers as determined by the committee, to 
complete a form that details the biographical, financial, and 
other information of the nominee. The form executed by Dr. 
Jamie M. Morin in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jamie Michael Morin.

    2. Position to which nominated:
    Director, Cost Assessment and Program Evaluation

    3. Date of nomination:
    September 11, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 28, 1975, Southfield, MI.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Megan Anne Baker-Morin
    (Note: she uses the hyphenated version for some purposes, Megan 
Anne Baker professionally).

    7. Names and ages of children:
    William (Liam) Morin, age 8.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Ph.D. in Political Science, Yale University, 2003. Attended 1998-
2003.
    M.Phil., Yale University, 2001.
    M.A., Yale University, 2001.
    M.Sc. in Public Administration and Public Policy, London School of 
Economics, 1998. Attended 1997-1998.
    B.S.F.S in International Security and Diplomacy, Georgetown 
University School of Foreign Service, 1996. Attended 1993-1996.
    High School Diploma, University of Detroit Jesuit High School, 
1993. Attended 1989-1993.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Acting Under Secretary of the Air Force, Washington DC (July 2012 
to April 2013).
    Assistant Secretary of the Air Force (Financial Management and 
Comptroller), Washington DC (June 2009 to present).
    Senior Defense Analyst, U.S. Senate Committee on the Budget, 
Washington DC (July 2003 to June 2009).
    National Fellow in Public Affairs, Miller Center for Public 
Affairs, University of Virginia, Charlottesville, VA (July 2002 to July 
2003) .

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    As a visiting fellow at the Center for Strategic and Budgetary 
Assessments, I assisted with research and writing of a study for the 
Department of Defense's Office of Net Assessment.
    As a consultant with J.E. Austin Associates, I participated in 
several U.S. Agency for International Development economic development 
projects.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member of Yale, Georgetown, and University of Detroit Jesuit High 
School alumni associations
    Member of American Society of Military Comptrollers
    Member of Air Force Association
    Member of the Forum of Young Global Leaders of the World Economic 
Forum
    Term Member of the Council on Foreign Relations
         Member of the ``Term Member Advisory Committee,'' with no 
        fiduciary or management responsibilities.
    Den Leader, Cub Scout Pack 98, St Anthony's Catholic Church, 
Washington DC

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for whichyou have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Volunteer advisor on defense budget policy, Obama for America, 
2007-2008.
    Volunteer, Virginia Campaign for Change, November 2008.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $200 - Obama for America, October 22, 2011
    $200 - Obama for America, February 24, 2012
    $800 - Obama for America, ($100 per month from April-November 2012)
    $250 - Barack Obama (General Election), October 22, 2008
    $200 - Barack Obama (Primary), July 9, 2008
    $200 - Barack Obama (Primary), January 8, 2008 (estimated)

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Air Force Meritorious Civilian Service Medal (2013)
    Named a ``Young Global Leader'' by the World Economic Forum's Forum 
of Young Global Leaders (2013)
    Dirksen Center - Congressional Research Award (2003)
    Miller Center (UVA) - National Fellow in Public Affairs (2002-2003)
    Yale University - Yale University Fellowship (1998-2002), 
Dissertation Fellowship (2002-2003)
    Smith-Richardson Foundation - Research Fellowship (2001, 2002)
    Nominated by students for the Yale College Teaching Prize (1999)
    DACOR Bacon House Foundation - Tutthill Fellowship (1997)
    Krogh Scholar, Georgetown University School of Foreign Service 
(1995-1996)
    Eagle Scout, Boy Scouts of America (1992)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Quarterly articles in Air Force Comptroller Magazine: 2009-2013
    ``Making Every Dollar Count,'' Armed Forces Comptroller, Spring 
2013
    ``Deepening U.S.-Asian Relationships by Expanding Military 
Partnership'' Blog post at the World Economic Forum blog, http://
forumblog.org/2013/03/deepening-us-asian-relationships-by-expanding-
military-partnership/
    ``Achieving Acquisition Excellence in the Air Force: A Financial 
Management Perspective,'' Armed Force Comptroller, March 2010.
    Squaring the Pentagon: The Politics of Post-Cold War Defense 
Retrenchment, Ph.D. Dissertation, Yale University Department of 
Political Science, 2003.
    ``The Politics of Post-Cold War Defense Retrenchment,'' Paper 
presented to the New Faces in International Security Conference, 
Triangle Institute for Security Studies, (2003).
    ``Did Congress Shape America's Post-Cold War Defense? Measuring the 
Politics of Budgetary Retrenchment,'' Paper presented to the American 
Political Science Association's 2003 annual conference.
    ``Explaining the Shape of the Post-Cold War U.S. Military,'' Paper 
presented to the Miller Center Fellows. Conference, May 2003.
    ``Congressional Assertion in Defense Budgeting During 
Retrenchment,'' Presentation to the Miller Center Fellows Kick-off 
Conference (2002).
    ``Comment on Josef Joffe's `Who's Afraid of Mr. Big,' '' The 
National Interest (Fall 2001).
    ``European Economic and Monetary Union and Trans-Atlantic Security 
Relations,'' International Security Review (London, RUSI: 1999).
    ``EMU and U.S. Troops in Europe,'' Royal United Services Institute 
Newsbrief (London, RUSI: April 1998).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Air Force Financial Services Office Worldwide Conference - November 
4, 2009
    American Society of Military Comptrollers, Corporate Board 
Breakfast - December 3, 2009
    American Society of Military Comptrollers, National Professional 
Development Institute - June 2, 2010
    American Society of Military Comptrollers, Washington Chapter - 
June 14, 2010
    American Society of Military Comptrollers, National Professional 
Development Institute - June 1, 2011
    Address to Research Corridor Unmanned Aircraft Systems Summit - May 
22, 2012
    The Fletcher School Lecture and Luncheon - October 16, 2012
    TechAmerica - December 5, 2012
    Government Executive Media Group: ``Focus on Defense'' - December 
6, 2012
    Wright-Patterson Air Force Base Industry Outreach Event - December 
17, 2012
    The State of Small Business - December 17, 2012
    Air Force Association Breakfast Series - January 15, 2013
    Center for Naval Analyses Military Advisory Board - January 30, 
2013
    Georgetown Asia Rebalance Forum - February 27, 2013
    National Defense Industrial Association Luncheon - March 11, 2013
    Northwest Florida Defense Coalition Fly-In - March 12, 2013
    Energy Media Teleconference - March 21, 2013
    Space Budget Rollout - April 15, 2013

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Jamie M. Morin.
    This 26th day of September, 2013.

    [The nomination of Dr. Jamie M. Morin was reported to the 
Senate by Chairman Levin on October 31, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was returned to the President at the end of the first session 
of the 113th Congress on January 6, 2014, under provisions of 
Senate Rule XXXI, paragraph 6, of the Standing Rules of the 
Senate.]
                              ----------                              

    [Prepared questions submitted to Dr. Jo Ann Rooney by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater Nichols Act 
provisions?
    Answer. I do not see the need to modify any provision of the 
Goldwater Nichols Act.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not see the need to modify any provisions of the 
Goldwater Nichols Act.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. If confirmed, I will bring over 25 years of senior 
leadership experience to this position along with education credentials 
in finance, law, taxation, and education. In my most recent role inthe 
Department of Defense (DOD), I had the honor and privilege to serve as 
Acting Under Secretary/Principal Deputy Under Secretary of Defense 
(USD/PDUSD) for Personnel and Readiness. In this role, I was 
responsible for Total Force Management as it relates to Health Affairs, 
National Guard and Reserve Affairs and Readiness and Force Management 
including: military personnel policies, civilian personnel policies, 
readiness, military, community and family programs, equal opportunity, 
morale, welfare, recreation and quality of life matters. I had direct 
responsibility and accountability for over 30,000 employees and a 
budget of $73 billion including: the oversight and administration of 
the $50 billion Defense Health Program (including all military 
treatment facilities (59 hospitals and 360 clinics), the Graduate 
Medical University and Tricare Management Activities); Defense 
Commissaries and Exchanges with $14.5 billion in annual sales; the 
Defense Education Activity which supports over 100,000 students 
worldwide; and the Defense Equal Opportunity Management Institute. In 
addition, as Acting USD/PDUSD and a member of the Secretary's senior 
leadership team, I actively participated alongside uniformed service 
leaders in the development of the Defense Strategy and defense budget 
for fiscal years 2013-2017. During my tenure, we worked closely with 
senior military and civilian leaders across all Services on the 
implementing the repeal of ``Don't Ask Don't Tell'' and the review of 
benefits post-repeal; completion of the Women In the Service Report; 
development of the initial rollout of enhanced sexual assault 
prevention programs and policies; directing the Dover Port Mortuary 
task force and response (including direct meetings with family 
members); ongoing improvements to the Disability Evaluation System for 
wounded, ill and injured servicemembers across each of the uniformed 
services including enhancement of programs for treatment and diagnoses 
for PTSD and TBI; reviewing military compensation including retirement 
reform; developing a new policy and program resulting in a fundamental 
redesign of the manner in which servicemembers are transitioned to 
veterans status (TAP); and developing the risk mitigation plan for the 
Secretary of Defense in response to the Chairman of the Joint Chiefs of 
Staff's risk assessment. Along with the DepSecVA, I co-chaired the DOD/
VA Joint Executive Council (JEC) bringing together military and 
civilian leadership from both departments to make decisions addressing 
key issues involving both agencies.
    During 8 years as president of a doctoral level university, we 
successfully addressed serious financial challenges enabling the 
institution to realize significant operating surpluses after years of 
deficits. In addition, we developed an innovative educational model 
that directly impacted retention, graduation rates and student success. 
Various corporate and civic engagements have enabled me to lead 
organizations through dynamic structural and financial challenges 
allowing them to better serve their constituents. In particular, my 
work on the Jewish Hospital and St. Mary's HealthCare (JHSMH) health 
care system board of trustees as vice chair, allowed me to be directly 
involved in developing policies and procedures impacting patient care, 
safety, operating efficiencies and human resource policies across a 
system of approximately $1 billion encompassing ambulatory, community 
hospital and tertiary care facilities, an inpatient psychiatric 
hospital, comprehensive rehabilitation facility, and clinical research.
                                 duties
    Question. Section 5015 of title 10, U.S.C., states the Under 
Secretary of the Navy shall perform such duties and exercise such 
powers as the Secretary of the Navy may prescribe.
    What is your understanding of the duties and functions of the Under 
Secretary of the Navy?
    Answer. The statutory duties and functions of the Under Secretary 
of the Navy are broadly defined to ``perform such duties and exercise 
such powers as the Secretary of the Navy may prescribe.'' By statute, 
the Under Secretary is first in succession in the event of the 
Secretary of the Navy dies, resigns, is removed from office, is absent 
or is disabled. By regulation, The Under Secretary is designated as the 
deputy and principal assistant to the Secretary of the Navy and acts 
with full authority of the Secretary in managing the Department of the 
Navy. The Under Secretary serves as the Chief of Staff of the 
Secretariat and the Chief Operating Officer of the Department. In 
accordance with section 904(b) of the National Defense Authorization 
Act for Fiscal Year 2008, the Under Secretary is also the Department's 
Chief Management Officer.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Under Secretary of the Navy, as set 
forth in section 5015 of title 10, U.S.C., or in DOD regulations 
pertaining to functions of the Under Secretary of the Navy?
    Answer. I have reviewed the statutory and regulatory functions of 
the Secretary of the Navy and presently do not recommend any 
modification. If confirmed and I identify areas that I believe merit 
changes, I will propose those changes through the appropriate 
established processes.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect will be prescribed for you?
    Answer. If confirmed, I look forward to working with the Secretary 
of the Navy to further his vision and goals for the Navy and Marine 
Corps. I expect the Secretary will assign me duties consistent with my 
background, my strengths, and the present needs of the Department of 
the Navy.
    Question. Section 904(b) of the National Defense Authorization Act 
for Fiscal Year 2008, directs the Secretary of a military department to 
designate the Under Secretary of such Military Department to assume the 
primary management responsibility for business operations.
    What is your understanding of the business operations 
responsibilities of the Under Secretary of the Navy?
    Answer. The Under Secretary of the Navy is responsible for 
overseeing all business operations of the Department. More 
specifically, the Under Secretary of the Navy directs the shaping of a 
leaner, more integrated, and simplified business environment and guides 
opportunities to streamline processes.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Under Secretary of the Navy to the following officials:
    The Secretary of Defense.
    Answer. The Secretary of Defense is the principal assistant to the 
President in all matters relating to DOD. The Secretary of the Navy 
reports directly to the Secretary of Defense and ensures that his 
priorities are implemented in the Department of the Navy. When acting 
as the Secretary of the Navy, the Under Secretary would do the same.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense, on occasion, serves as 
Acting Secretary of Defense. The Deputy Secretary of Defense also 
serves as the Chief Management Officer of DOD. If confirmed, I will 
work closely with the Deputy Secretary of Defense on a range of matters 
to include supporting the Deputy Secretary of Defense in his role as 
Chief Management Officer of DOD.
    Question. The Deputy Chief Management Officer of DOD.
    Answer. The Deputy Chief Management Officer is the principal staff 
assistant to the Secretary and Deputy Secretary of Defense for matters 
relating to the management and improvement of integrated DOD business 
operations. If confirmed, I will work directly with the Deputy 
Secretary of Defense (DOD CMO) and the DOD DCMO on the full range of 
matters involving the management of DOD. If confirmed, I will assist in 
the development of a comprehensive Departmental transformation plan and 
business systems architecture and oversee the identification and 
implementation of potential business process improvements.
    Question. The Director of the Business Transformation Agency.
    Answer. I understand that this agency was disestablished by the 
Secretary of Defense in 2011 and transferred functions to the DOD 
Deputy Chief Management Officer.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I will work closely with the 
Chairman through the Chief of Naval Operations and Commandant of the 
Marine Corps on appropriate matters affecting the Navy and Marine 
Corps.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman has the same statutory authorities and 
obligations as other members of the Joint Chiefs of Staff. When 
performing duties as the Acting Chairman, the Vice Chairman's 
relationship with the combatant commanders is exactly the same as that 
of the Chairman. If confirmed, I will work closely with the Vice 
Chairman through the Chief of Naval Operations and Commandant of the 
Marine Corps on appropriate matters affecting the Navy and Marine 
Corps.
    Question. The Secretary of the Navy.
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the Secretary of the Navy is responsible for, and 
has the authority necessary to conduct all affairs of the Department of 
the Navy. The Under Secretary of the Navy is the deputy and principal 
assistant to the Secretary of the Navy and acts with full authority of 
the Secretary in managing the Department of the Navy.
    Question. The Chief of Naval Operations.
    Answer. The Chief of Naval Operations (CNO) performs his duties 
under the authority, direction and control of the Secretary of the Navy 
and is directly responsible to the Secretary according to title 10. The 
Under Secretary deals directly with the CNO in all Department 
leadership meetings and when acting in the Secretary's stead. The Under 
Secretary works most closely with the Vice Chief of Naval Operations 
(VCNO). If confirmed, I would foster a close working relationship with 
the CNO and the VCNO to ensure that policies and resources are 
appropriate to meet the needs of the Navy and respect the CNO's 
additional responsibilities as a member of the Joint Chiefs of Staff.
    Question. The Commandant of the Marine Corps.
    Answer. The Commandant of the Marine Corps performs his duties 
under the authority, direction and control of the Secretary of the Navy 
and is directly responsible to the Secretary according to title 10. The 
Under Secretary deals directly with the Commandant of the Marine Corps 
in all Department leadership meetings and when acting in the 
Secretary's stead. The Under Secretary works most closely with the 
Assistant Commandant of the Marine Corps. If confirmed, I would foster 
a close working relationship with the Commandant and the Assistant 
Commandant of the Marine Corps to ensure that policies and resources 
are appropriate to meet the needs of the Navy and Marine Corps, and 
respect the Commandant's additional responsibilities as a member of the 
Joint Chiefs of Staff.
    Question. The Assistant Secretaries of the Navy.
    Answer. There are four Assistant Secretaries of the Navy performing 
statutory functions and such duties as the Secretary prescribes. If 
confirmed, I will work with each of the Assistant Secretaries of the 
Navy to achieve the Secretary's goals.
    Question. The General Counsel of the Navy.
    Answer. The General Counsel of the Navy serves as the senior 
civilian legal advisor to the Department of the Navy, the Secretary's 
chief ethics official and performs such functions as the Secretary of 
the Navy shall direct. If confirmed, I will work closely with the 
General Counsel to achieve the Secretary's goals.
    Question. The Inspector General of the Navy.
    Answer. The Navy Inspector General is in the Office of the 
Secretary of the Navy. When directed, the Navy Inspector General 
inquires into and reports upon any matter that affects the discipline 
or military efficiency of the Department of the Navy. He shall make 
such inspections, investigations, and reports as the Secretary of the 
Navy directs. He also proposes programs of inspections and 
investigations as appropriate. If confirmed, I will work closely with 
the Inspector General to achieve the Secretary's goals.
    Question. The Surgeon General of the Navy.
    Answer. The Surgeon General provides direction, guidance and 
management of Navy medical personnel worldwide. The Surgeon General 
advises the Secretary of the Navy as well as the Assistant Secretary of 
Defense for Health Affairs on matters pertaining to Navy and Marine 
Corps force and the health of personnel. If confirmed, I will work 
closely with the Surgeon General to achieve the Secretary's goals.
    Question. The Director of the Navy's Business Transformation 
Office.
    Answer. The Director of the Navy's Office of Business 
Transformation is currently designated as the DoN DCMO. If confirmed, I 
would work closely with the DCMO to determine needed changes to 
Departmental transformation plans, business systems architecture, and 
to identify needed business process improvements.
    Question. The Judge Advocate General of the Navy.
    Answer. The Judge Advocate General of the Navy is the senior 
uniformed legal advisor to the Secretary of the Navy, provides 
independent legal advice to the Secretary of the Navy and the Chief of 
Naval Operations and performs duties relating to any and all Department 
of the Navy legal matters assigned to her by the Secretary. If 
confirmed, I look forward to developing a good working relationship 
with the Judge Advocate General and her staff.
    Question. The Under Secretaries of the Military Services.
    Answer. If confirmed, I will work diligently to develop close 
working relationships with the Under Secretaries of the Army and Air 
Force, particularly in our capacities as Chief Management Officers for 
our respective Services.
                     major challenges and problems
    Question. In your view, what are the major challenges, if any, that 
you would confront if confirmed as Under Secretary of the Navy?
    Answer. DOD and all of the Services are facing numerous challenges 
brought on by over 10 years of war and fiscal uncertainty. These 
factors directly impact decisions on current programs, support for the 
warfighter and investment in future capabilities and requirements. The 
Navy and Marine Corps are deployed around the world engaged in the full 
spectrum of military missions, from direct combat operations to 
providing security in the maritime domain to humanitarian assistance. 
Determining the best balance between meeting current challenges, 
building a relevant and capable future force, enabling and supporting 
sailors, marines, their families, and the civilian workforce will pose 
the most significant challenges in the years ahead. It is also critical 
to be good stewards of taxpayer dollars, being accountable for ensuring 
these resources are invested wisely and efficiently. In the role as 
Chief Management Officer, continued improvement to program and budget 
development and the cost effectiveness of the acquisition program, will 
remain major challenges and priorities.
    If confirmed, I will work tirelessly to address these issues and 
would work closely with DOD, Navy and Marine Corps leadership, and this 
committee to develop and execute strategies to address these 
challenges.
    Question. If confirmed, how would you prioritize and what plans 
would you have, if any, for addressing these challenges?
    Answer. In response to the strategic guidance from the President, 
the Secretary of the Navy, Chief of Naval Operations and Commandant of 
the Marine Corp have articulated clear priorities focused on people, 
platforms, power and partnerships. If confirmed, I look forward to 
working with the Secretary of the Navy, senior Military and DOD 
leadership, and this committee to meet these challenges and priorities 
including but not limited to:

        <bullet> Ensuring the readiness of our force to meet current 
        and future missions around the world by recruiting, training, 
        and retaining highly-skilled sailors and marines, and 
        supporting the families of the servicemembers;
        <bullet> supporting a diverse and well-trained civilian 
        workforce;
        <bullet> continuing to address the critical issues of sexual 
        assault and suicides among our sailors and marines;
        <bullet> maintaining a long-term ship building program that 
        supports the needs for modernization and future capabilities, 
        supports a robust industrial base, and is both achievable and 
        fiscally sustainable;
        <bullet> promoting acquisition excellence, stewardship, 
        accountability and innovation; and,
        <bullet> supporting the enhancement of enterprise-wide business 
        systems to improve core business operations, performance 
        metrics and accountability.
        duties and responsibilities as chief management officer
    Question. Section 904 of the National Defense Authorization Act for 
Fiscal Year 2008 designates the Under Secretary of the Navy as the 
Navy's Chief Management Officer (CMO). Section 908 of the National 
Defense Authorization Act for Fiscal Year 2009 requires the CMO of each 
of the military departments to carry out a comprehensive business 
transformation initiative, with the support of a new Business 
Transformation Office.
    What is your understanding of the duties and responsibilities of 
the Under Secretary in his capacity as CMO of the Department of the 
Navy?
    Answer. If confirmed, my most important duty as CMO will be to 
ensure that the Department of the Navy has a pragmatic and well-thought 
out comprehensive business transformation plan with measureable 
performance goals and objectives. In addition, I will continue to 
support a well-defined enterprise-wide business systems architecture. I 
would work with the DCMO to:

        <bullet> Fully analyze the budget, finance, accounting, and 
        human resource operations of the Department of the Navy in an 
        effort to identify, streamline, and ultimately transform these 
        related processes;
        <bullet> Eliminate or replace systems whose business case 
        analyses are determined not to be cost effective or otherwise 
        inconsistent with business enterprise architecture transition 
        plans;
        <bullet> Monitor the implementation of the Department of the 
        Navy's Business Transformation Plan.

    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. The Under/CMO must have a thorough knowledge of the 
Department of the Navy; to include the culture of both services, the 
government employees that support them and the industrial base. The 
Under/CMO should also have or develop knowledge on the way programs and 
budgets are developed and be a strong leader and manager. I have served 
as the Acting Under Secretary/Principal Deputy Under Secretary of 
Defense for Personnel and Readiness, as well as the deputy senior 
policy advisor to the Secretary of Defense on recruitment, career 
development, pay and benefits for 1.4 million Active Duty military 
personnel, 1.3 million Guard and Reserve personnel, nearly 700,000 DOD 
civilians, and was responsible for overseeing the overall state of 
military readiness. In years past, I have served as chief counsel, 
chief operating officer, and chief financial officer in the private 
sector. I have taken a struggling university to financial success while 
simultaneously implementing major programmatic, changes, IT 
transformation and infrastructure upgrades and have also served in a 
leadership role on the board of a major hospital system undergoing 
significant operational and organizational change. I believe that my 
background along with formal education, particularly in law and 
finance, provides a solid foundation for the position as CMO but I 
accept that I must continue to learn, and will rely greatly on the 
knowledge and advice of the team in the Departments of Defense and 
Navy.
    Question. Do you believe that the CMO and the Business 
Transformation Office have the resources and authority needed to carry 
out the business transformation of the Department of the Navy?
    Answer. I believe the CMO and the Business Transformation Office 
have the resources and authority needed to carry out the business 
transformation of the Department. If confirmed, I would consult with 
the Secretary of the Navy, DOD DCMO, and DOD CMO if I discover that 
those resources and authorities were insufficient.
    Question. What role do you believe the CMO and the Business 
Transformation Office should play in the planning, development, and 
implementation of specific business systems by the military 
departments?
    Answer. I believe the CMO and DCMO/BTO should serve as guides and 
enablers for implementing sound best practices regarding planning, 
development, and implementation of business systems, and verify those 
policies are being followed appropriately in accordance with DOD 
guidelines. If confirmed, I would work with the DCMO/BTO to institute 
rigorous investment management and business process reengineering (BPR) 
procedures for their managed business systems.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the position of CMO and creating the 
Business Transformation Office?
    Answer. At this time, I do not believe that any changes are 
necessary, but if confirmed, I would consult with the Secretary of the 
Navy, DOD DCMO, and DOD CMO if my experience led me to believe that 
changes were warranted.
    Question. Section 2222 of title 10, U.S.C., requires that the 
Secretary of Defense develop a comprehensive business enterprise 
architecture and transition plan to guide the development of its 
business systems and processes. The Department has chosen to implement 
the requirement for an enterprise architecture and transition plan 
through a ``federated'' approach in which the Business Transformation 
Agency has developed the top level architecture while leaving it to the 
military departments to fill in most of the detail. The Navy's business 
systems, like those of the other military departments, remain incapable 
of providing timely, reliable financial data to support management 
decisions.
    If confirmed, what steps, if any, would you take to ensure that the 
Navy develops the business systems and processes it needs to 
appropriately manage funds in the best interest of the taxpayer and the 
national defense?
    Answer. If confirmed, I will ensure that the proper business case 
analyses and appropriate establishment and application of business 
enterprise architectures support the capability of providing timely, 
reliable data to support management decisions. I will approach this 
responsibility mindful of our role as public servants to be guardians 
of the public fiscal resources.
    Question. Do you believe that a comprehensive, integrated, 
enterprise-wide architecture and transition plan is essential to the 
successful transformation of the Navy's business systems?
    Answer. I am skeptical that a single architecture for an 
organization as large and complex as the Department of the Navy is 
practical or efficient. This does not mean that all standards, 
policies, and processes should not be established to rival the best of 
those in the private sector. It does mean that, if confirmed, I am 
accountable to ensure the appropriate analysis and process development 
occur to transform outdated and inefficient business operations into 
those that are streamlined, cost effective, and well-planned.
    Question. What steps would you take, if confirmed, to ensure that 
the Navy's enterprise architecture and transition plan meet the 
requirements of section 2222?
    Answer. I understand that much progress was made last year to 
ensure conditions for fiscal year 2014 obligation of funds for covered 
defense business system programs met the requirements of section 2222. 
The fiscal year 2014 Department of the Navy Organizational Execution 
Plans and Precertification memo was completed on time and met or 
exceeded requirements. If confirmed, I will continue that work with the 
Business Transformation Council, Investment Review Board, and DOD DCMO 
to fully meet the requirements specified in law.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. Timely and accurate financial and business information is 
essential in managing the Department's business operations. In order to 
make informed decisions, the Department's senior leaders must have 
credible, reliable, authoritative information at the right time.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial and business information was not 
routinely available for these purposes?
    Answer. If confirmed, I would prioritize their requirement to have 
processes in place and appropriate systems subsequently needed to 
produce the data.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to Navy managers?
    Answer. If confirmed, I will work closely with the Department of 
the Navy DCMO and the Assistant Secretary of the Navy Financial 
Manager/Comptroller to confirm the establishment of specific 
requirements and execute measures required to improve the quality of 
financial information used for decisionmaking.
                     auditable financial statements
    Question. Section 1003 of the National Defense Authorization Act 
for Fiscal Year 2010 requires the Chief Management Officer of DOD to 
establish a plan to ensure that DOD's financial statements are 
validated as ready for audit by not later than September 30, 2017. The 
Secretary of Defense has established the additional goal of ensuring 
that the statement of DOD's budgetary resources is validated as ready 
for audit by not later than September 30, 2014.
    In your opinion, is the Department of the Navy on track to achieve 
these objectives, particularly with regard to data quality, internal 
controls, and business process re-engineering?
    Answer. I do not yet have enough information to form an opinion on 
this matter; however, I understand that the Department has a Financial 
Improvement Plan and is making progress toward achieving auditable 
financial statements. I am aware that difficult issues must be 
addressed, including the valuation of major weapon systems and 
equipment. I have not had the opportunity to review the plan and at 
this time could not inform you of my confidence level that the 
September 30, 2014 goal is achievable.
    Question. If not, what impediments may hinder the Navy's ability to 
achieve this goal and how would you address them?
    Answer. I do not yet have enough information to form an opinion on 
this matter; however, I expect that the impacts of past, present and 
any future furlough of Government civilian personnel could serve as an 
impediment. Likewise, the budget uncertainty for fiscal year 2014 and 
beyond is a likely impediment. If confirmed, I will maintain a steady 
focus and commitment on all Department efforts to enable audit 
readiness consistent with the statutory requirement and to ensure they 
are built on a foundation that results in sustainable audit 
environments well into the future.
    Question. In your view, are the steps that the Navy needs to take 
to meet the 2014 goal consistent with the steps that DOD needs to take 
to achieve full auditability?
    Answer. If confirmed, I am committed to maintaining a steady focus 
on all Department efforts towards audit readiness and achieving clean 
audit opinions. This consistent focus is critical to the success of the 
2014 goal. If confirmed, I will review the objectives that have been 
prepared and determine whether they appear to be reasonable and 
effective.
    Question. What steps will you take, if confirmed, to ensure that 
the Navy moves to achieve these objectives without an unaffordable or 
unsustainable level of one-time fixes and manual work-arounds?
    Answer. If confirmed, I will maintain a steady focus and commitment 
on all Department efforts to enable audit readiness and to ensure they 
are built on a foundation that results in sustainable audit 
environments well into the future. This includes documentation and 
standardization of business processes across the Navy to ensure they 
are traceable, sustainable, and auditable.
             navy policies regarding drug and alcohol abuse
    Question. What is your understanding of the Navy's policy with 
respect to disciplinary action and administrative separation of Navy 
and Marine Corps personnel who have been determined to have used 
illegal drugs? Do you agree with this policy?
    Answer. The Department of the Navy has a zero tolerance policy 
regarding illegal drug use and that this policy is clearly understood 
by all sailors and marines from the moment they enter the Service. Zero 
tolerance, in this context, means that sailors and marines that use 
illegal drugs, which includes unauthorized use or abuse of prescription 
drugs, will be held accountable, as appropriate, under the Uniform Code 
of Military Justice and unless discharged by a court-martial, subjected 
to mandatory administrative processing for separation from the Service. 
I agree with this policy.
    Question. What is your understanding of the Navy's policy with 
respect to rehabilitation and retention on active duty of members of 
the Navy and Marine Corps who have been determined to have used illegal 
drugs or abused alcohol or prescription drugs? Do you agree with this 
policy?
    Answer. I agree with the Department's drug and alcohol policy. I 
understand that while Navy and Marine Corps personnel who violate the 
Department of the Navy's drug policy will be appropriately punished and 
processed for separation, they will also be screened for counseling 
prior to administrative processing, and they will be given the 
opportunity to benefit from whatever treatment is deemed necessary.
    As for alcohol abuse, I understand that the Department of the 
Navy's policy is to de-glamorize use, and to treat and track alcohol 
abuse. I further understand that there is a zero tolerance policy for 
driving while under the influence and that all alcohol-related vehicle 
incidents are reviewed prior to an officer's promotion to determine 
whether that officer is suitable for advancement to the next higher pay 
grade. Irrespective of how alcohol abuse is identified, I understand 
that Navy and Marine Corps personnel will be screened and provided an 
opportunity to participate in treatment, up to and including inpatient 
care.
    I believe there is a duty to ensure sailors and marines receive the 
care they need. However, failure to obey the rules results in 
consequences and I fully support the Department of the Navy's policy.
    Question. Do you believe that the Navy has devoted sufficient 
resources for implementation of its rehabilitation policies and 
objectives since 2001? If not, in what ways have resources been 
insufficient?
    Answer. Based on the information I have, I believe the Navy has 
devoted sufficient resources for implementation of its rehabilitation 
policies and objectives. If confirmed, I commit to developing a more 
thorough understanding of the resources the Navy has devoted to these 
policies and objectives.
                          religious guidelines
    Question. In your view, do Department of the Navy policies 
concerning religious accommodation in the military appropriately 
accommodate the free exercise of religion and other beliefs, including 
individual expressions of belief, without impinging on those who have 
different beliefs, including no religious belief?
    Answer. Based on the information I have, I am aware that all 
requests for religious accommodation are evaluated and given due 
consideration. I do believe that current Defense Department policies 
appropriately accommodate the free exercise of religion and other 
beliefs but are balanced against the interest in avoiding adverse 
impact on good order and discipline as well as mission accomplishment.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact good order and 
discipline?
    Answer. Consistent with the law, every religious accommodation 
request requires individualized analysis. I believe that under current 
law and policy, religious accommodation is appropriately balanced 
against the interest in avoiding adverse impacts on good order and 
discipline.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by Navy and Marine Corps chaplains in 
a variety of formal and informal settings strike the proper balance 
between a chaplain's ability to pray in accordance with his or her 
religious beliefs and the rights of other servicemembers with different 
beliefs, including no religious beliefs?
    Answer. Current law protects chaplains from being required to 
perform any rite, ritual, or ceremony that is contrary to the 
conscience, moral principles, or religious beliefs of the chaplain. I 
believe that current policies strike an appropriate balance for 
military chaplains acting in a pluralistic environment while 
simultaneously protecting their religious freedoms.
    Question. What is your assessment of measures taken at the Naval 
Academy to ensure religious tolerance and respect?
    Answer. I understand that the same policies implemented throughout 
the Navy are also instituted at the Naval Academy and that religious 
tolerance and respect is afforded to all midshipmen, faculty and other 
assigned personnel.
                 sexual assault prevention and response
    Question. In 2012, for the fourth year in a row, there were more 
than 3,000 reported cases of sexual assault in the military, including 
2,558 unrestricted reports, and an additional 816 restricted reports. 
Moreover, DOD's most recent survey indicates that the actual number of 
sexual offenses could be considerably higher, as 6.1 percent of active 
duty women and 1.2 percent of active duty men surveyed reported having 
experienced an incident of unwanted sexual contact in the previous 12 
months. This survey has been criticized by some because its conclusions 
are extrapolated from an unscientific sample set and the questions 
asked in the survey were too imprecise. Both former Secretary of 
Defense Panetta and Secretary Hagel have implemented new initiatives 
for addressing sexual assault in the military.
    What is your assessment of the Navy's implementation of the new 
policies for addressing sexual assault offenses?
    Answer. By their new policies, some of which are unique among the 
services, the Navy has demonstrated that sexual assault prevention and 
response is a priority. It is apparent to me that the Navy is 
constantly looking for ways to confront this criminal activity and 
create an environment that facilitates prompt reporting and enables 
victim care. There have been a series of focused changes in place 
dealing directly with sexual assault prevention and response, such as: 
raising the disposition authority for a sexual assault case to an O-6 
with special court-martial convening authority; ensuring a judge 
advocate is the investigating officer in an Article 32 hearing; 
implementing a Victims' Legal Counsel program; hiring additional Sexual 
Assault Resource Counselors and victim advocates; and in the case of 
the Navy service, hiring resiliency counselors to deploy with larger 
platforms, among others. However, the Navy is also addressing some of 
the other risk factors to include alcohol abuse. I am not yet in a 
position to assess the efficacy of these programs. If confirmed, I 
expect this assessment will be among my top priorities.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults have 
occurred?
    Answer. My view is that commanders set the tone of their command. 
They are responsible and should be accountable for the health, safety, 
and morale of their units--to include the command climate with regard 
to gender issues and sexual assault. Their daily actions and comments, 
as transmitted through the chain of command, are visible models that 
inform subordinates of our true standards and expectations. Local 
commanders and chains of command are also the most effective way to 
ensure compassionate support individuals in need--something hard to do 
from afar. While Commanders do indeed need consistent and effective 
policy guidance and resource support from senior leadership, no 
strategy to combat sexual assault, no matter how well-founded, could 
ever succeed without the active engagement of commanding officers and 
their chains of command.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. A judge advocate outside the chain of command will be 
looking at a case through a different lens than a military commander. I 
believe the impact would be decisions based on evidence rather that the 
interest in preserving good order and discipline. I believe this will 
result in fewer prosecutions and therefore defeat the very problem that 
I understand it seeks to address. I understand that the Response 
Systems Panel directed by the NDAA for Fiscal Year 2013 is looking at 
this very issue and I would appreciate the opportunity to review data 
and recommendations they have before considering a change of this 
magnitude.
    Question. What is your view of the protections afforded to victims 
who are required to testify at Article 32, Uniform Code of Military 
Justice, investigations that are required before charges can be 
referred to a General Court-Martial?
    Answer. The Rape Shield Law applies to victims at an Article 32 
investigation hearing. This protects the victims from intrusive 
questioning about their sexual history unless there is a specific 
exemption. While I'm not opposed to considering changes in the Article 
32 process to afford greater protections, I am concerned that as 
victims and witnesses receive enhanced statutory and regulatory 
protection there is a risk of eroding the Constitutional protections of 
a criminal accused. I strongly believe we must work through any 
substantive changes deliberately so that we are fully informed, and I 
believe that the panels established in section 576 of the NDAA for 
Fiscal Year 2013 were wise and welcome requirements of Congress that 
will, if given the opportunity, better inform us all.
    Question. What is your understanding of the resources and programs 
the Navy has in place to provide victims of sexual assaults the 
medical, psychological, and legal help that they need?
    Answer. The Navy service is adding a Sexual Assault Prevention and 
Response (SAPR) officer at the rank of Commander or higher to major 
naval commands, has completed the hiring of Sexual Assault Response 
Coordinators and Victim Advocates and took the additional step of 
hiring Deployed Resiliency Counselors (DRC) to serve on larger 
warships. Additionally, the Navy service is in the process of 
implementing a Victims' Legal Counsel Program wherein Judge Advocates 
will help protect a victim's rights through the investigative and 
adjudicative stages of the military justice process.
    Question. What is your view of the steps the Navy has taken to 
prevent additional sexual assaults? In your view, are these steps 
adequate?
    Answer. Sexual assaults involving sailors and marines are 
completely unacceptable. Unfortunately, there are no simple answers. I 
am encouraged by the focused, persistent effort of the Department of 
the Navy.
    Since 2009, the Department and each Service has worked to structure 
its sexual assault organizations. The Department of the Navy Sexual 
Assault Prevention and Response Office (DON-SAPRO) provides independent 
visibility and reports directly to the Secretary.
    Each Service has implemented strategic plans to combat sexual 
assault and developed new training tools. All sailors and marines have 
received state-of-the-art sexual assault prevention training--most of 
them more than once. Both Services have adopted more aggressive 
campaigns against alcohol and everywhere emphasized the importance of 
bystander intervention to break up sexual assault situations. In doing 
so, they've underscored the importance of core values and the 
responsibility of every sailor and marine for both their own behavior 
and also to actively protect each other from harm.
    Question. What is your view of the adequacy of the training and 
resources the Navy has in place to investigate and respond to 
allegations of sexual assault?
    Answer. I am aware that the Department has undertaken a number of 
initiatives to improve training, investigate and respond to sexual 
assault including: special training for Navy Criminal Investigation 
Service (NCIS) agents and lawyers. Over the past 1-2 years, a cadre of 
approximately 18 criminal investigators has been hired--in most cases, 
individuals with extensive civilian experience in sexual assault 
investigations. The Department is now supplementing that commitment 
with the hiring of an additional 54 new NCIS agents to focus on sexual 
assault investigations--specifically in response to the increased NCIS 
workload resulting both from policy requirements to investigate all 
allegations of sexual assault of any nature, and from the success of 
Department-wide efforts to make sailors and marines more comfortable in 
reporting sexual assaults in the first place. If confirmed, I would 
continue to monitor the effectiveness of these initiatives and seek 
opportunities to advance additional training and resources to address 
the needs in this area.
    Question. Do you consider the Navy's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Answer. I do. Substantial increases in both restricted and 
unrestricted reporting during fiscal year 2012 and fiscal year 2013 in 
both the Navy and Marine Corps demonstrate the emphasis the Department 
has placed on sexual assault victim support and the intensity of 
training initiatives to address the problem of under-reporting. 
Additionally, there are reporting procedures in place that require a 
commanding officer to report a complaint of sexual assault to the first 
Flag officer in the chain of command. They also must immediately 
initiate a situational report that is sent to JAG and NCIS channels as 
well as to all echelons of leadership. This increases visibility and 
accountability.
    I understand the concept behind restricted reporting, but I also 
understand the criticism. We want to hold perpetrators of sexual 
assault responsible, but we cannot do that unless we know who they are. 
I believe that with the implementation of the Victims' Legal Counsel 
Program and with Victim Advocates in place, the rate of unrestricted 
over restricted reporting will improve.
    Question. What is your view of the adequacy of resources in the 
Navy to investigate allegations of sexual misconduct and to hold 
perpetrators accountable for their actions? What problems, if any, are 
you aware of in the manner in which the confidential reporting 
procedures have been put into effect?
    Answer. NCIS investigates all allegations of sexual assault. This 
requires resources. The Secretary has authorized the hiring of 54 
additional NCIS agents to focus on sexual assault questions. In order 
for a report of sexual assault to remain a restricted report, a victim 
can only notify certain individuals. Once NCIS is notified of a sexual 
assault complaint, they must investigate whether or not the victim 
wants to cooperate; however, an investigation without a cooperating 
victim is very difficult.
    Question. What is your view of the appropriate role for senior 
military and civilian leaders in the Secretariat, the Navy staff and 
the Marine Corps staff in overseeing the effectiveness of 
implementation of new policies relating to sexual assault?
    Answer. Sexual assault prevention and response is a responsibility 
of leadership up and down the organization. In 2009, the Secretary of 
the Navy was the first to establish a Secretariat level office to 
oversee sexual assault prevention and response in the Department. The 
office is led by an SES who reports directly to the Secretary. This 
Secretariat-level SAPR strategy focuses on consistent top-down 
leadership message. Each Service also has their own program offices, 
led by a one-star Flag or General Officer who is responsible for 
overseeing the implementation of Service-specific programs.
    Question. Do you believe that sexual assault continues to be an 
underreported crime within the Department for the Navy?
    Answer. Yes--I believe it is the most under-reported crime. 
However, as the Navy implements new programs and policies, I would 
expect to see an increase in reporting as victims feel more comfortable 
coming forward to report these crimes.
    Question. If so, what are the barriers that discourage or prevent 
victims from coming forward?
    Answer. I believe the biggest challenges relate to the personal 
concerns of victims about embarrassment, self-blaming, and how victims 
feel they will be viewed by their friends and peers. These are tougher 
matters to overcome, and they ultimately depend on developing a culture 
that is simultaneously intolerant of sexual assault and focused on 
compassionate support of sexual assault victims.
    Question. If confirmed, what additional steps would you take to 
remove barriers to reporting sexual assaults?
    Answer. If confirmed, I would continue to focus on victim care. 
Victims of sexual assault need to feel safe and cared for and that 
their needs are being met. As more victims feel comfortable coming 
forward and reporting sexual assault, we will see the barriers to 
reporting begin to dissolve.
    Question. In response to the Annual Report on Sexual Harassment and 
Violence at the Military Service Academies for Academic Program Year 
2011-2012, the Secretary of Defense wrote to the Service Secretaries 
and the Under Secretary of Defense for Personnel and Readiness stating: 
``Despite our considerable and ongoing efforts, this year's Annual 
Report on Sexual Harassment and Violence at the Military Service 
Academies demonstrates that we have a persistent problem. I am 
concerned that we have not achieved greater progress in preventing 
sexual assault and sexual harassment among academy cadets and 
midshipmen. These crimes and abhorrent behavior are incompatible with 
the core values we require of our Armed Forces' future officers. A 
strong and immediate response is needed.''
    What has the Navy done to respond the Secretary of Defense's 
requirement for a strong and immediate response?
    Answer. I understand that the Secretary and the Chief of Naval 
Operations both place a personal high priority on issues at the Naval 
Academy. Earlier this year there was an extensive review of SAPR 
program structure and staffing. As a result, the Academy has assigned 
two civilian full-time Sexual Assault Response Coordinators (SARCs) and 
two civilian full-time Sexual Assault Prevention and Response Victim 
Advocates (VAs). The SARCs now report directly to the Superintendent 
and no military personnel are assigned SARC responsibilities. The VAs 
report directly to the SARCs. Additionally, an experienced Judge 
Advocate and trial attorney was recently put in place as the first 
Victim's Legal Counsel in the Navy.
    In addition, a survey was conducted of all Midshipmen to explore 
perspectives on sexual assault circumstances, the command climate, and 
barriers to reporting. Those results helped inform the Academy's own 
efforts to engage local stakeholders in confronting key issues.
    Question. If confirmed, what additional steps will you take to 
address the findings contained in this report?
    Answer. Senior military and civilian leaders at all levels from the 
Secretariat down must continue to focus on promoting environments at 
the Naval Academy and all commands that prevent sexual assault. If 
confirmed, I will work with the Secretary and service leaders to 
maintain a focused and persistent commitment on these issues.
 annual increase in rates of basic pay below the employment cost index
    Question. The Department has requested an across-the-board pay 
raise for 2014 for military personnel of 1 percent, versus a 1.8 
percent rise in the Employment Cost Index (ECI) benchmark, and has 
indicated that in order to restrain the growth of personnel costs, 
similar below-ECI pay raises may be necessary over the next several 
years.
    What is your assessment of the impact a 1 percent pay raise would 
have on Navy and Marine Corps recruiting and retention for 2014?
    Answer. Military compensation is highly competitive today, and the 
President's proposed slowdown in base pay growth is not likely to cause 
recruiting or retention problems in the near term provided recruiting 
bonuses and retention pays are preserved. With the modest increases in 
the pay table as proposed in the President's budget, servicemembers 
will still realize sizable pay increases through promotions and 
longevity. In the current fiscal environment, there is room to slow 
down base pay growth, thereby helping to mitigate further cuts to force 
structure, readiness and modernization.
    Question. What would be the impact of a 1 percent pay raise in 2015 
through 2017 on recruiting and retention? What level of savings would 
you anticipate achieving relative to pay raises equal to ECI for those 
years?
    Answer. Total military compensation has to be sufficient to attract 
and retain the numbers and quality the services need in uniform to 
fulfill our missions. Military compensation has gained ground relative 
to comparable civilian compensation in recent years. In my view, 
military pay raises below ECI for a few years would not cause major 
recruiting or retention problems for the Department of the Navy.
    Assuming a comparison between a 1.8 percent ECI increase and a 1 
percent proposed increase from 2015 to 2017 and that service end 
strengths remain at fiscal year 2014 requested levels, I would expect 
the Department of the Navy to save $900 million in Active Duty basic 
pay and $130 million in Reserve component pay for those 3 years.
                        end strength reductions
    Question. The Department last year laid out a defense strategy that 
proposes an eventual end strength of 182,000 for the Marine Corps over 
the next 5 years.
    What is your understanding of the Marine Corps' ability to meet 
these goals without forcing out marines who have served in combat over 
the past 10 years with the implicit promise that they could compete for 
career service and retirement?
    Answer. The promise of a military retirement is one of the solemn 
pledges made to compensate our servicemembers when they volunteer for a 
full career. However, it is time for a review of this system. I fully 
support Congress' establishment of the Military Compensation and 
Retirement Modernization Commission to conduct a comprehensive review 
of military compensation and retirement systems. Keeping faith with 
those currently serving is a high priority, and in my view the 
Commission and Congress should ensure that any resulting reforms 
protect our current servicemembers through grandfathering those who 
prefer the current retirement structure.
    That said, I understand that the Marine Corps desires and intends 
to keep the faith with marines and only use voluntary separation tools. 
Whether these voluntary force shaping tools result in the necessary end 
strength will determine the need for any involuntary force shaping 
methods.
    Question. To what extent will the Marine Corps have to rely on 
involuntary separations in 2014 through 2018? How will sequestration 
affect this?
    Answer. It is not yet clear to me to what extent the Marine Corps 
will rely on involuntary separations during this time period. 
Sequestration, Continuing Resolutions, and government shutdowns 
exacerbate all problems.
    Question. What programs are in place to ensure that separating and 
retiring sailors and marines are as prepared as they can be as they 
enter a struggling economy?
    Answer. The newly redesigned Transition Assistance Program (TAP) is 
intended to prepare sailors and marines to make a successful transition 
from military to civilian life and help shorten their time to post-
service employment. Transition GPS includes a 5 day common core 
curriculum, an option of participating in additional tailored 
curriculum depending on the members' follow-on interest and a ``warm-
handover'' to government agencies and organizations that provide 
transitioning members with continued benefits, services and support as 
veterans.
    The Department of the Navy's new transition program will also 
incorporate career readiness and transition preparation into the entire 
span of a servicemember's career. In the past, transition and 
preparation for the civilian workforce occurred late in a 
servicemember's lifecycle--near the point of separation. Under this new 
program, these concepts will be incorporated earlier as a way to ensure 
that the counseling, assessments, and access to resources to build 
skills or credentials occur at earlier stages.
    Question. How fast can the Marine Corps responsibly and fairly 
reduce end strength while maintaining the integrity and readiness of 
combat units?
    Answer. I am not equipped with sufficient information to 
effectively respond to this question at this time, but the Marine Corps 
will almost certainly need a balanced program of reduced accessions and 
lower retention to achieve the proposed strength reductions while 
maintaining readiness.
    Question. If sequestration continues through 2018, what will be the 
impact on the Active Duty and Reserve end strengths of the Navy and 
Marine Corps, and how would the mix between the Active and Reserve 
Forces be affected?
    Answer. In the case of the Marine Corps, I understand that the 
Commandant's adjusted end strength goal of 182,100 marines by the end 
of fiscal year 2016 assumes risk. If sequestration continues, I expect 
the Marine Corps will be required to further reduce end strength and 
will put the Nation's ability to respond to crisis at risk. In the case 
of the Navy, Active and Reserve end strength is linked to force 
structure and would almost certainly decrease as force structure 
changes are made. As to the planned mix of Active and Reserve Forces, I 
am not yet equipped with the information necessary to respond to this 
question but as DOD looks to slow the growth of personnel costs this 
will be an area that I expect would be evaluate carefully.
    Question. What is your understanding of the need for additional 
force shaping tools requiring legislation beyond what Congress has 
provided the past 2 years?
    Answer. I am unaware of a need for additional force shaping tools 
beyond what Congress has provided over the past 2 years.
             navy and marine corps recruiting and retention
    Question. The retention of quality sailors and marines, officer and 
enlisted, Active Duty and Reserve, is vital to the Department of the 
Navy.
    How would you evaluate the status of the Navy and Marine Corps in 
successfully recruiting and retaining high caliber personnel?
    Answer. I understand that both services have met their recruiting 
goals in recent years and have brought in exceptionally high quality 
cohorts of new sailors and marines. I understand that recruit quality 
has been so high that attrition of new recruits has been at record 
lows.
    Question. How would you evaluate the recruiting and retention of 
uniformed and civilian health care professionals?
    Answer. Healthcare professionals are always challenging to recruit, 
but I understand that the Active component Navy has met both recruiting 
and retention goals this year.
    Question. What initiatives would you take, if confirmed, to further 
improve Navy and Marine Corps recruiting and retention, in both the 
Active and Reserve components, including health care professionals?
    Answer. If confirmed, I will be mindful of the effects of 
sequestration on efforts to recruit and retain the high-quality sailors 
and marines in our All-Volunteer Force and will recommend any necessary 
improvements after consultation with the Service Chiefs or their 
designees, the Assistant Secretary of the Navy for Manpower and Reserve 
Affairs and the Surgeon General.
                             sequestration
    Question. What would be the impact on the Navy and Marine Corps if 
another round of sequestration were to take effect during fiscal year 
2014?
    Answer. Sequestration in fiscal year 2014, particularly when 
combined with the absence of an appropriation and the restrictions 
associated with a potential Continuing Resolution, will reduce service 
readiness in the near-term and continue to negatively impact programs 
in the long term. I would expect reductions to operations and 
maintenance funding to impact the Navy's near-term forward presence and 
depot maintenance and training, which will in turn, affect future 
operational rotations. In investment accounts, I expect tradeoffs and 
reduced quantities of ships, aircraft, and weapon systems will likely 
be required.
    Question. What would be the specific impact on Navy and Marine 
Corps civilian and military personnel; on family programs; on morale, 
welfare and recreation programs; and on the delivery of health care to 
service personnel, retirees, and their families?
    Answer. Even though military personnel accounts are exempt from 
sequestration many of these programs are funded from the Operations and 
Maintenance Accounts. I am not aware of specific impacts at this time 
but I would expect there will be negative impacts.
                           suicide prevention
    Question. The number of suicides in the total Navy and Marine Corps 
continues to be of concern to the committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Department of the Navy to 
prevent suicides and increase the resiliency of service personnel and 
their families?
    Answer. If confirmed, I would commit to leading on this issue and 
to advance the Department's goal to reduce the number of Navy and 
Marine Corps suicides by accelerating reviews of successful initiatives 
both inside and outside the Services to incorporate evidence-based best 
practices.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and sometimes lengthy 
deployments. These programs must be relevant and attractive to all 
eligible users, including Active Duty and Reserve personnel, retirees, 
and families.
    What challenges do you foresee in sustaining Navy MWR programs, 
particularly in view of the current fiscal environment, and if 
confirmed, are there any improvements you would seek to achieve?
    Answer. Sustaining Navy and Marine Corps MWR programs will be 
challenged by reductions in appropriated fund support to those MWR 
programs not funded fully by non-appropriated funding, and the changing 
needs of sailors, marines, and their families based on the fluctuating 
fiscal environment and any future reductions in end strength. If 
confirmed, I will assess whether there are ways to improve the 
sustainment of our most important MWR programs.
                      family readiness and support
    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of concerns among military families as a result of 
the stress of deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for Navy and Marine Corps personnel and their families, and, if 
confirmed, how would you ensure that family readiness needs are 
addressed and adequately resourced?
    Answer. I recognize our sailors and marines can achieve and 
maintain their peak readiness only when their families are also 
prepared to handle the mental and emotional rigors of military service.
    In my view, continuing to prepare and support our sailors, marines, 
and their families before, during, and after deployment to promote 
positive adjustment to deployment, family separation, and family 
reunion remains one of our most important family readiness issues. By 
continuing to emphasize the importance of this subset of family 
readiness programs, the Department can assist commanding officers, 
sailors, marines, and their families to manage the demands of the naval 
service lifestyle of ongoing deployments and increasing operational 
tempo.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and future reductions in end 
strength?
    Answer. Global rebasing, increasing operational tempo, and future 
reductions in end strength will necessitate continuous assessment of 
the needed level and nature of services to ensure the health and well-
being of our sailors, marines, and their families. Annual assessments 
of family support programs conducted by the Services allow the 
identification of changing needs and adjustment and realignment of 
services as necessary.
    Question. If confirmed, how would you ensure support is provided to 
Reserve component families related to mobilization, deployment and 
family readiness, as well as to active duty families who do not reside 
near a military installation?
    Answer. A number of information and referral services such as 
Military OneSource and Military and Family Life Counseling Services are 
available to both Active Duty and Reserve sailors, marines, and family 
members and should continue to be resources for servicemembers and 
family members.
    Question. If confirmed, what steps will you take to sustain Navy 
and Marine Corps family support, given current fiscal constraints?
    Answer. If confirmed I would evaluate the balance of appropriated 
and non-appropriated funding levels for different programs and ensure 
the services have identified improved effectiveness, efficiency, and 
economy in the delivery of programs to include exploration of shared 
services or similar models for common support with the other military 
departments as opportunities to provide family readiness programs at 
needed service levels.
                systems and support for wounded warriors
    Question. Servicemembers who are wounded or injured in combat 
operation deserve the highest priority from the Navy, Marine Corps, and 
the Federal Government for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from Active Duty if required, and continuing support beyond retirement 
or discharge. Despite the enactment of legislation and renewed emphasis 
over the past several years, many challenges remain.
    What is your assessment of the progress made to date by the 
Department of the Navy to improve the care, management, and transition 
of seriously ill and injured sailors and marines and their families?
    Answer. I understand that the Department of the Navy is currently 
meeting the Integrated Disability Evaluation System (IDES) goal of 295 
days, but the Department should continue to improve system performance 
by leveraging available IT systems that increase process visibility and 
active leadership to better manage workflow.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. For the serious wounded, ill, and injured, a smooth 
transition from the Department of the Navy to the Department of 
Veterans Affairs (VA) remains the most important goal. The Department 
of the Navy is presently coordinating with the DOD-VA interagency task 
force to better prepare sailors and marines to make a successful 
transition from military to civilian life and Veteran status and 
progress here should continue.
    Question. What are the weaknesses that need to be corrected?
    Answer. As fiscal resources become increasingly limited it will 
become more difficult to maintain education, training, and 
certification for Physical Evaluation Board Liaison Officers, 
physicians and IDES staff--each of which are critical components to 
maintaining timeliness and program quality. Challenges remain to 
improve/develop viable IT solutions that minimize staff workload while 
delivering the data needed to avoid process delays and post-service 
benefit gaps.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Navy's and Marine 
Corps' support for wounded personnel and their families, and to monitor 
their progress in returning to duty or to civilian life?
    Answer. To meet the presidential directive to develop a 
comprehensive plan for a ``career ready military'', and to comply with 
the Veterans Opportunity to Work to Hire Heroes Act of 2011 (``VOW 
Act''), which requires mandatory participation in all elements of the 
Transition Assistance Program (TAP), the Navy and Marine Corps are 
fully engaged in implementation of a redesigned TAP.
    The Navy is coordinating with the DOD-VA interagency task force to 
better prepare sailors and marines to make a successful transition from 
military to civilian life and Veteran status. All eligible separating 
servicemembers are required to participate in the TAP program; however, 
wounded, ill, and injured recovering servicemembers may be exempt from 
the Department of Labor Employment Workshop, provided they are enrolled 
in the Education and Employment Initiative (E2I) or a similar 
transition program intended to improve career readiness.
           navy and marine corps civilian personnel workforce
    Question. Section 955 of the National Defense Authorization Act for 
Fiscal Year 2013 required the Secretary of Defense to develop a plan to 
reduce the size of the civilian personnel workforce by 5 percent over 
the next 5 years. The plan developed by the Secretary does not meet 
this objective. Since the time that section 955 was enacted, the 
Department has implemented hiring freezes and furloughs due to 
sequestration. As a result, the DOD civilian personnel workforce is 
substantially smaller than it was when section 955 was enacted or at 
the time the plan was submitted.
    Do you agree that the Navy and Marine Corps civilian employee 
workforce plays a vital role in the functioning of the Department of 
the Navy?
    Answer. I have made a deliberate effort to understand the critical 
roles the civilian workforce plays in the Department of the Navy.
    Question. Among the Department's 198,000 civilian employees, more 
than half are engineers, scientists, logisticians, information 
technology specialists, and acquisition specialists many with critical 
certifications and advanced degrees. 7,000 are in the medical 
community, and 35,000 are blue collar artisans. Over 57 percent of the 
Navy's civilian workforce are veterans and 15-20 percent of new hires 
are wounded warriors and disabled veterans.
    There are civilian career employees in every single State in more 
than 558 different occupational series across the country helping to 
solve fleet issues--whether a malfunction in a ship's main propulsion 
or a combat system out of alignment. Simultaneously, you have hundreds 
more developing and manufacturing the critical specialty ordnance items 
and men and women carefully repairing and maintaining our nuclear 
submarines and ships. They answer the call, 24/7, providing a rapid 
response to ensure that our warfighters get what they need, when they 
need it.
    Question. Do you agree that if sequestration continues through 
fiscal year 2014 and beyond, the Navy and Marine Corps will need to 
further reduce the size of its civilian workforce?
    Answer. I expect that will be the case, but I am not equipped with 
information to respond to that question at this time. At the very 
least, I would expect continued hiring freezes and potential furloughs 
to occur.
    Question. In your view, would it be preferable for the Navy and 
Marine Corps to make planned, prioritized reductions to the civilian 
workforce, or to downsize using arbitrary reductions based on hiring 
freezes and workforce attrition?
    Answer. Given the ever-changing demands on mission, there must be 
careful consideration of the analysis of the workload with a strategic 
approach to ultimately create an affordable workforce which still meets 
the critical demands placed on the workforce.
                           tactical aviation
    Question. Several years ago, the Navy and Marine Corps began to 
integrate their tactical aviation units.
    What is your assessment of this initiative?
    Answer. I understand that Naval Aviation force projection is 
accomplished by the balanced integration of Marine Corps tactical 
aircraft (TACAIR) squadrons into Carrier Air Wings and, when required, 
Navy squadrons into Marine Aircraft Wings. I believe that the continued 
integration of Naval Aviation provides the framework for the Navy and 
Marine Corps to further enhance core combat capabilities to provide a 
more potent, cohesive fighting force that is sustainable.
    Question. The Department of the Navy is facing a potential 
shortfall of strike fighter aircraft in the next decade even if the 
Navy continues to buy F-35 Joint Strike Fighter (JSF) aircraft at the 
rate projected in this year's budget.
    What is your assessment of this situation and what actions should 
the Department of the Navy take to address this potential shortfall?
    Answer. I understand that the strike fighter shortfall is projected 
to fluctuate throughout the next 20 years.
    To date, the Department of the Navy has been able to mitigate its 
shortfall with the successful execution of its Legacy F/A-18 A-D high 
flight hour inspection and repair program, and a reduced utilization 
rates across the F/A-18 A-F fleet. The continued efforts of the Navy/
Marine Corps team will further define necessary actions required to 
manage aging F/A-18 A-D aircraft, address discovery of potentially 
greater than expected fatigue and corrosion, and ensure required 
availability of aircraft until JSF Fleet Introduction.
    The Navy and Marine Corps continue to adjust transition plans as F-
35 procurement ramps are flattened. The Marine Corps is taking 
advantage of higher service life remaining in its AV-8B inventory by 
delaying the majority of their transitions to the end of the transition 
plan. This is expected to reduce the demand for F/A-18 A-D in the later 
years. I believe that sustainment and relevancy funding will be 
imperative to maintain the requisite operational capability of the AV-
8B throughout the 2020s.
    Question. What other potential alternatives do you see for 
maintaining sufficient strike assets if there were any additional 
slippage in the initial operating capability date for the F-35 Joint 
Strike Fighter?
    Answer. Future delays in the JSF program will make strike fighter 
inventory management more difficult.
    Without additional investments in other strike fighter production 
lines, the delay of the F-35C or F-35B would make the strike fighter 
shortfall more difficult to manage potentially resulting in a 
significant loss of capability that a multi-role mix of fourth- and 
fifth-generation aircraft provides across the full spectrum of combat 
operations.
    The timely delivery of the JSF is critical to the Department of the 
Navy's ability to meet operational demands for sea control, 
expeditionary strike and to establish and maintain a complementary mix 
of strike fighter aircraft.
                           shipbuilding plan
    Question. The Navy annually submits a 30-year shipbuilding plan.
    Do you agree that the 30-year shipbuilding plan should, in fact, 
reflect realistic cost estimates and include all important shipbuilding 
efforts for that document to be useful for decisionmakers?
    Answer. Yes, the 30-year shipbuilding plan should reflect the 
Navy's best estimate of costs to procure the balanced fleet to meet the 
Nation's security requirements. The Navy has placed a great emphasis on 
improving cost performance in shipbuilding through the use of expanded 
competition, fixed price contracts, and multi-year procurements and 
block buys. If confirmed as Under Secretary, I would continue to 
emphasize achieving our affordability goals and providing transparency 
to Congress on the Navy's progress in achieving those goals.
    Question. What level of funding do you think the Navy will need to 
execute this plan, and considering competing priorities, do you believe 
this level of funding is realistic?
    Answer. I think that the level of funding needed to execute the 
plan varies each year but averages approximately $16.8 billion per year 
in fiscal year 2013 constant dollars. I understand that this level of 
funding is higher than recent historical averages but must be provided 
to ensure the Navy can procure the vessels to meet the Nation's 
maritime security requirements. The Defense Strategic Guidance called 
for a rebalance toward the Asia-Pacific regions, and there has been a 
renewed focus on naval assets. Secretary Mabus and service leadership 
have prioritized shipbuilding and those positive trends can be seen in 
ship procurement and budget requests. I expect that sequestration 
continues to pose a significant risk to the Navy's ability to purchase 
the ships needed to execute the strategy. If sequestration or other 
competing priorities cause the funding levels called for in the 
shipbuilding plan to not be met, then adjustments to force structure 
will necessarily have to be evaluated.
    Question. Cost growth continues to be a prevalent problem in Navy 
shipbuilding programs, particularly for the first ships in new classes. 
Some experts have taken the position that DOD could improve the 
performance of its acquisition plans by adopting commercial practices, 
such as: retiring all major risk prior to signing a procurement 
contract; fixing the cost and delivery date at contract signing; 
competing all basic and functional design prior to starting 
construction; and having a disciplined construction process that 
delivers ships on cost and on schedule.
    To what extent should such commercial shipbuilding best practices, 
and any others you may be aware of, be incorporated into Navy 
shipbuilding programs?
    Answer. Over the past 4 years, I understand that the fleet numbers 
have stabilized and the primary causes of cost growth have been 
addressed in the shipbuilding programs. As part of this, commercial 
shipbuilding's best practices should be exercised to the maximum extent 
feasible to achieve cost savings in shipbuilding while still meeting 
military requirements. I understand that the Navy has expanded use of 
commercial standards in shipbuilding contracts and has aggressively 
pursued competition wherever possible.
                           aircraft carriers
    Question. We are now in a 2-year gap between the decommissioning of 
the USS Enterprise and the availability of a new aircraft carrier, CVN-
78 (USS Gerald R. Ford). During this period only 10 aircraft carriers 
will be operational.
    What is your view of the Secretary Gate's plan to permanently 
change the aircraft carrier force structure to 10 from the current 
number of 11? Is this still the plan?
    Answer. In his recommendations for the fiscal year 2010 budget, 
Secretary Gates directed a shift in the time between construction 
starts for Ford-class carriers to 5 years. I believe that rebasing the 
build rate on 5-year centers provides a more stable and predictable 
funding plan for carriers, as well as for the other platforms in the 
Navy's 30-year shipbuilding plan. This restructured procurement plan 
also enables a steady state force structure of 11 carriers through 2040 
by more closely aligning delivery of Ford-class carriers with the 
notional 50-year service life of the Nimitz-class ship each will 
replace. I understand that the adjustment to 5-year centers does 
results in a reduction of the aircraft carrier force structure from 11 
to 10 CVNs in 2040 and beyond.
    Question. How would the aircraft carrier presence requirements of 
combatant commanders be met with only 10 operational aircraft carriers?
    Answer. Navy would look to balance presence requirements with 
projected operations and maintenance schedules, similar to what the 
service has been doing since the inactivation of USS Enterprise (CVN 
65) in December 2012. I understand that the Navy has determined the 
risk to be acceptable, although moderate, during the relatively short 
period of operating with a 10-carrier fleet between the inactivation of 
CVN 65 and the commissioning of Gerald R. Ford (CVN 78).
    When the force structure is permanently reduced to 10 carriers in 
2040, Navy will have to determine how best to mitigate the risks at 
that time associated with a reduced force and to properly prioritize 
worldwide presence requirements. While the inherent flexibility 
provided by the current Fleet Response Plan will enable the Navy's 
carrier force to meet some emergent demands, it may not be able to meet 
all of them.
                  marine corps ground combat vehicles
    Question. Over the 2 years the Marine Corps has been working on a 
ground combat vehicle fleet mix study to refine and link its combat 
vehicle requirements to sea-lift and ship-to-shore capabilities, and 
estimate the life-cycle costs of various alternatives in light of the 
fiscal challenges of the future.
    What is your understanding and assessment of the Marine Corps' 
current and future ground combat vehicle fleet and mix of capabilities?
    Answer. I understand that the Marine Corps combat vehicles are at 
the front end of much needed recapitalization. The Corps' ground combat 
tactical vehicle strategy includes developing and procuring the Joint 
Light Tactical Vehicle (JLTV); developing a modern Amphibious Combat 
Vehicle (ACV); sustaining a portion of the Humvee fleet through 2030; 
initiating an upgrade program for the legacy assault amphibious vehicle 
as a bridge to the ACV; and managing procurement of vehicles to reduce 
acquisition objectives, a net reduction of about 20 percent based on 
the more recent force structure reviews.
    I understand that the JLTV program remains on track with the 2014 
budget request continuing development in support of procurement 
commencing in 2015 though there may be impacts from fiscal year 2014 
sequestration.
    The Amphibious Combat Vehicle is, as the Commandant stated in 
testimony earlier this year, a top Marine Corps priority. The execution 
of amphibious operations requires a self-deploying amphibious vehicle 
to seamlessly project ready-to-fight Marine units from sea to land in 
permissive, uncertain, and hostile environments. This capability 
enables the Corps to maximize available amphibious lift and accelerate 
the buildup of power ashore, which is key to overcoming access 
challenges posed by either the lack of improved infrastructure or the 
threat of an adversary.
    The marines are conducting a combined requirements definition 
feasibility study assembling the best of Government and industry 
requirements, systems engineering design, and cost experts. The intent 
is to bring the best talent and best information together to build on 
the tremendous body of knowledge possessed across all vehicle programs 
to determine how to deliver the capability needed by the Marine Corps 
with high confidence in the affordability of the defined requirements.
    Question. What, in your view, are the greatest risks, if any, to 
the readiness of the current fleet and the realization of a modernized 
fleet sometime in the future?
    Answer. Reductions to operations and maintenance funding is 
directly impacting the Marine Corps near-term forward presence and 
depot maintenance and training, which will affect future operational 
rotations, as well as reducing the readiness of non-deployed forces.
    In investment accounts, the biggest risk is to future readiness. I 
understand that the Marine Corps is weighing alternatives to mitigate 
this through legacy equipment sustainment and bridging efforts, 
quantity reductions, scheduled delays and the cost impacts to each of 
its programs.
    Question. If confirmed, what would be your role in the oversight of 
the Marine Corps' combat vehicle modernization program to ensure that 
requirements are relevant, up-to-date, and stable, and that 
technologies are achievable and affordable?
    Answer. If confirmed, I would continue to emphasize the key lessons 
the services have learned, which begin with getting requirements 
appropriately defined and scoped. Affordability targets must be 
established with an understanding of both opportunity costs and service 
impacts and must endeavor to hold those targets in a dynamic and 
uncertain fiscal environment.
               risk in the ground vehicle industrial base
    Question. Since the cancellation of the Expeditionary Fighting 
Vehicle in 2011, the USMC's ground equipment modernization program has 
been restructured to orient on developing a technologically achievable 
and affordable amphibious combat vehicle, continued development of the 
Joint Light Tactical Vehicle, while at the same time upgrading or 
extending the life of current combat and tactical vehicles.
    Given the general slowdown of ground vehicle development, 
procurement, and maintenance programs across the Marine Corps and the 
Army, what, in your view, are the risks to the combat and tactical 
vehicle industrial base that could undermine Marine Corps readiness 
and, if confirmed, what actions, if any, are you taking to manage these 
risks?
    Answer. I understand that the Marine Corps went line by line 
through their programs to mitigate the effects of the slowdown and 
sequestration in 2013 recognizing some of the bow wave effects into the 
out-years.
    Delays in the JLTV and the ACV programs are concerning and bear 
close scrutiny as affordability is a major factor in both of those 
programs.
    The ACV is the Commandant of the Marine Corps number one priority 
for ground modernization. Of course, this does impact other Marine 
Corps lift requirements, and that too bears close scrutiny.
    The Marine Corps has also developed a bridging strategy until the 
ACV is able to be fielded, and that is to selectively sustain a number 
of AAVs, which are in the fleet right now. I understand that these 
efforts will focus on increasing survivability of the vehicles.
    Question. If confirmed, what criteria or indications in the 
industrial base, if any, will you monitor to alert you to potential or 
imminent loss of capability or capacity to meet the Marine Corps' needs 
into the future? How would you propose to respond to evidence of an 
unacceptable increase in this risk or the imminent loss of capability 
or capacity?
    Answer. Preserving the Ground Vehicle market is very important to 
ensuring current and future capability for the Marine Corps, but I 
understand that the Marine Corps is only a small piece of the total 
Ground Vehicle customer base, with the U.S. Army being the larger part. 
Because of the cross-service demand for Ground Vehicles, the Deputy 
Assistant Secretary of Defense for Manufacturing and Industrial Base 
Policy (DASD(MIBP)) closely monitors the industrial base.
    Maintaining close collaboration with DASD(MIBP) and the other 
services will be crucial to monitoring and addressing the issues of the 
supplier base. Many of the critical suppliers are lower tier vendors--
in depth monitoring of the supply chain is required to ensure overall 
health of the market. In the event of imminent loss of essential 
capability, it may be necessary to employ strategies to preserve key 
suppliers such as fostering greater Foreign Military Sales volume to 
partner nations.
                          navy force structure
    Question. The Chief of Naval Operations has publicly stated that 
the Navy has a requirement for 306 ships.
    Do you agree with this requirement?
    Answer. The Navy's plan for a fleet of 306 ships maintains a 
flexible, balanced force that will prevail in a wide range of combat 
situations. The fleet is designed to support the current Defense 
Strategic Guidance and combatant commanders' presence requirements and 
reflects a reduced number of vessels from the 313 ship plan due to 
increased forward basing of ships and an increase use of rotating 
civilian and military crews.
                     science and technology program
    Question. Do you believe that the current balance between short- 
and long-term research is appropriate to meet current and future 
Department of the Navy needs?
    Answer. I have not yet been briefed on the specific long and short-
term balance. In principle, however, I believe a robust research and 
development (R&D) effort that makes the right investments--and not 
merely investments in science for the sake of science--is vital to the 
future capability of the Navy and Marine Corps team. If confirmed, I 
will work with the Secretary of the Navy to evaluate the Navy's Science 
and Technology Program and find the right balance of long and short-
term investments for the Departmental R&D program.
    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science in meeting Navy and Marine 
Corps missions?
    Answer. The Navy and Marine Corps rely upon the technical 
superiority of our forces to discourage or destroy our enemies. Our 
challenge is that the rate of technology change continues to accelerate 
across the world. If confirmed, I would work with the Secretary of the 
Navy and the Research, Development, Test, and Evaluation (RDT&E) 
Corporate Board to ensure the Department of the Navy adequately 
addresses this critical area. I would also work closely with the 
Director of DARPA, the Office of Naval Research, industry, and academia 
to leverage their technology investments.
    Question. If confirmed, what guidance would you give to ensure 
research priorities that will meet the needs of the Navy and Marine 
Corps in 2020?
    Answer. The Department of the Navy RDT&E Corporate Board was 
established specifically for this purpose. If confirmed, I would use 
this board to actively engage the Department of the Navy's leadership 
in defining and setting priorities essential to success.
                             military space
    Question. Do you believe that the current DOD management structure 
for space programs sufficiently protects Navy space equities?
    Answer. My understanding is that the 2003 designation of the 
Secretary of the Air Force as the DOD Executive Agent for Space created 
an overarching DOD space oversight function, allowing the Navy access 
to critical DOD decisions on major space systems and capabilities. The 
Defense Space Council, which represents this body, affords the Navy the 
opportunity to review and participate in a variety of cross-cutting 
space issues in areas from acquisition oversight to requirements 
generation to studies and analysis. The Navy also participates in most 
Major Defense Acquisition Program milestones and Joint Requirements 
Oversight Council opportunities, providing avenues of influence for all 
space programs, regardless of service or interagency ownership.
    Question. In your view, how actively should the Navy be engaged in 
the management of space programs?
    Answer. Space is increasingly becoming constrained, congested, and 
contested. I expect the Navy's involvement in the definition, 
management, and execution of space programs is especially important for 
a Navy increasingly constrained fiscally while at the same time very 
much reliant on the global distribution of Positioning, Navigation & 
Timing, Communications, Missile Warning, Environmental and 
Intelligence, Surveillance and Reconnaissance information provided 
through space-based systems. Active Navy engagement in space should 
continue as DOD finds better ways to manage, access, distribute, and 
utilize information derived from space-based systems and seek to 
mitigate the challenges to the use of space our adversaries present 
both now and in the future.
    Question. In your view, is the Navy adequately involved in the 
requirements process for space programs?
    Answer. Yes. I understand that the Navy evaluates all capability 
gaps through internal requirements process as well as existing DOD and 
Intelligence Community (IC) formal requirements processes.
    Question. What is the Navy's appropriate long-term role in space 
systems, other than as a user of space information and products?
    Answer. Space systems are essential to modern warfare and integral 
to Navy's plans for achieving Information Dominance (ID) through 
Assured Command and Control, Battlespace Awareness, and Integrated 
Fires. I understand that Navy is a major user of satellite services and 
a key consumer of space-derived data within DOD, but most space systems 
today are acquired and operated by non-Navy organizations, including 
the U.S. Air Force, the Intelligence Community (IC), the National 
Oceanographic and Atmospheric Agency, and various U.S. and foreign 
commercial space providers. This unique arrangement requires a 
continuous and proactive Navy approach to ensure that space systems 
under development are optimized for maritime operations and able to 
support current and future Fleet operations. I expect Navy to continue 
to develop, acquire, and operate narrowband communication satellites 
for DOD, and maintain a nationally-recognized center for space 
technology at the Naval Research Lab, supporting Navy, DOD, and IC 
needs.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the Military Services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in installations has led to increasing backlogs of facility 
maintenance needs, substandard living and working conditions, and has 
made it harder for the Services to take advantage of new technologies 
that could increase productivity.
    Do you believe the Department of the Navy is investing enough in 
its infrastructure? Please explain.
    Answer. I believe our supporting systems, including shore 
infrastructure, are key enablers to executing the Department's 
warfighting missions. I'm also aware of the fiscal challenges facing 
the Department. If confirmed, I will look forward to meeting the 
challenge of balancing the Department's investments across a broad 
array of requirements to include shore infrastructure.
                           acquisition issues
    Question. What are your views regarding the need to reform the 
process by which the Department of the Navy acquires major weapons 
systems? If confirmed, what steps would you recommend to improve that 
process?
    Answer. The Navy has implemented several initiatives to improve the 
acquisition process. The Navy has improved oversight and reporting 
with;

        <bullet> Continuing refinement of Naval Two-Pass/Six-Gate 
        Review process for early and continuous leadership awareness of 
        requirements and affordability in terms of Total Ownership 
        Costs (TOC) throughout the Acquisition process.
        <bullet> Implement Better Buying 2.0 Initiatives and improved 
        oversight
        <bullet> Implemented Policy for Should Cost initiatives to be 
        integral to program planning and execution
        <bullet> Systems Engineering improvement to bring more mature/
        complete designs prior to MS B which can then be integrated 
        into better requirements for Industry to give better estimate 
        and proposals.
        <bullet> Developing partnerships with Industry to support the 
        industrial base and secure investment
        <bullet> Budgeting and Contracting activities to stabilize 
        funding and maximize multi-year procurements where beneficial.

    I fully support these efforts and other efforts to ensure a 
predictable funding profile for programs. This visibility is 
particularly important with the current strains on budgets.
    Question. Department-wide, nearly half of DOD's 95 largest 
acquisition programs have exceeded the so-called ``Nunn-McCurdy'' cost 
growth standards established in section 2433 of title 10, U.S.C. Many 
of those programs are being executed by the Department of the Navy.
    What steps, if any and if confirmed, would you take to address the 
out-of-control cost growth on the Department of the Navy's major 
defense acquisition programs?
    Answer. Many of the oversight and acquisition reform efforts have 
already bent the curve on the overall performance of our acquisition 
portfolio. I believe better requirements definition, early design 
maturity, stable funding are critical. I would continue working with 
the Warfighter on requirements generation. Navy-Industry teamwork 
throughout the process is essential.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced ``critical'' cost 
growth under Nunn-McCurdy?
    Answer. A key principle for me is an assessment of whether the 
existing program is still the best approach to meet the requirement and 
why we have confidence that the adverse cost growth can be contained? 
One must cast a critical eye at programs that have not delivered on 
their promises to the warfighter. I believe in the recertification 
requirements within Nunn-McCurdy: the program is essential to national 
security, that no suitable alternative of lesser cost is available, new 
estimates of total program costs are reasonable, and management 
structure is (or has been made) adequate to control costs.
    Question. Many experts have acknowledged that DOD may have gone too 
far in reducing its acquisition work force, resulting in undermining of 
its ability to provide needed oversight in the acquisition process.
    Do you agree with this assessment?
    Answer. Yes.
    Question. If so, what steps do you believe the Department of the 
Navy should take to address this problem?
    Answer. The Navy needs to look at how it recruits, incentivizes and 
retains our acquisition workforce. For example, the Navy needs to 
protect and expand the use of the Defense Acquisition Workforce 
Development Fund. The Office of Personnel Management rules governing 
recruitment and retention incentives are not flexible enough to 
maximize the use of Section 852 Incentive funds. Other examples 
include:

        <bullet> Lifting the hiring freeze
        <bullet> Provide entry level hiring flexibility through 
        multiple means of recruitment
        <bullet> Retired annuitants and Intergovernmental Personnel Act 
        (IPA) programs
        <bullet> Incorporate changes to expand applicant pool for 
        acquisition workforce personnel opportunities
        <bullet> Retention incentives in the form of bonuses, post-
        graduate education opportunities, paying off student loans, 
        etc.
        <bullet> Recruitment bonuses for interns
        <bullet> Fund developmental opportunities for mid- or senior-
        level staff

    The vast majority of the contracting commands are seeing an 
increase in seasoned, experienced personnel retiring. I would expect 
this to create a tremendous amount of corporate knowledge drain from 
DoN.
    Question. The Weapon Systems Acquisition Reform Act of 2009 (WSARA) 
was intended to ensure that future weapon systems move forward on a 
sound footing by addressing unrealistic program cost and schedule 
estimates, the absence of clearly defined and stable requirements, the 
inclusion of immature technologies that unnecessarily raise program 
costs and delay development and production, and the failure to solidify 
design and manufacturing processes at appropriate junctures in the 
development process.
    Do you support the approach taken by WSARA?
    Answer. Yes.
    Question. What additional steps, if any, do you believe the 
Department of the Navy should take to address these problems?
    Answer. In response to WSARA, I understand that it has been 
beneficial for spurring acquisition reform. The Navy has been engaged 
in an aggressive review of the acquisition process and overview. 
Specifically:
    I understand that the Navy has improved oversight and reporting 
with;

        <bullet> Continuing refinement of Naval Two-Pass/Six-Gate 
        Review process for early and continuous leadership awareness of 
        requirements and affordability in terms of TOCs throughout the 
        acquisition process.
        <bullet> Implement Better Buying 2.0 Initiatives and improved 
        oversight
        <bullet> Implemented Policy for Should Cost initiatives to be 
        integral to program planning and execution.

    These are not static initiatives and I would agree with their 
continuation and expansion.
    Question. By some estimates, DOD now spends more money every year 
for the acquisition of services than it does for the acquisition of 
products, including major weapon systems. Yet, the Department places 
far less emphasis on staffing, training, and managing the acquisition 
of services than it does on the acquisition of products.
    What steps, if any, do you believe the Navy should take to improve 
the staffing, training, and management of its acquisition of services?
    Answer. The Navy recognizes services contracts are a significant 
portion of the Navy's acquisition budget. To that end, I understand 
that the Department is working to reduce its services spending by up to 
$4 billion in fiscal year 2014, building on the decrease achieved in 
fiscal year 2013. I consider service contracting to be ``Commander's 
Business'' and we must hold all stakeholder's accountable. I expect the 
Navy will continue its use of Services Requirement Review Boards (also 
called Services Courts) and accompanying ``Tripwires'' to better 
understand our existing efforts, improve future requirements, and help 
ensure these activities receive appropriate oversight.
    Question. Do you think the Navy should develop processes and 
systems to provide managers with access to information needed to 
conduct comprehensive spending analyses of services contracts on an 
ongoing basis?
    Answer. Yes. I expect the Navy will continue to support Defense 
Procurement Acquisition Policy's efforts to deploy a Services Spend 
Analysis tool based on Federal Procurement Data System-Next Generation 
data.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on U.S. accession to UNCLOS?
    Answer. Nearly every maritime power and all the permanent members 
of the U.N. Security Council except the United States have ratified the 
convention. In my view, our absence as a Party weakens our position and 
impacts our military, diplomatic, and economic efforts worldwide. Only 
as a Party to the Convention can the United States fully secure its 
sovereign rights to the vast resources of our continental shelf beyond 
200 miles from shore. I strongly support accession to the LOS 
Convention.
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. I do not see any disadvantages to becoming a Party from a 
national security standpoint. As a non-party to the Convention, the 
United States must assert our navigation and overflight rights and high 
seas freedoms on the basis of customary international law which is more 
subject to dispute and change than norms established by treaty. 
Becoming a party to the treaty would give an immediate boost to U.S. 
credibility as we push back against excessive maritime claims and 
illegal restrictions on our warships or commercial vessels.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the 
Navy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
          Questions Submitted by Senator Kirsten E. Gillibrand
                 sexual assault prevention and response
    1. Senator Gillibrand. Dr. Rooney, you said in your advance policy 
questions that you fear that if decisions are made by Judge Advocates 
General (JAG) based on evidence, prosecutions might go down. If 
commanders push cases forward to court martial based on good order and 
discipline--with evidence as a secondary concern--is it not likely that 
the conviction rate will drop?
    Dr. Rooney. Consideration of the evidence is not a secondary 
concern. Pursuant to 10 U.S.C. section 834 (Article 34 of the Uniform 
Code of Military Justice), a military commander, prior to directing the 
trial of any charge by a general court-martial, must refer the charge 
to, and receive the consideration and advice of, a staff judge 
advocate. Included in this written advice is an assessment of whether 
the charges and specifications are warranted by the evidence. 
Commanders do consider the evidence. However, because of the very 
nature of command, commanders must also consider other factors such as 
the impact that discipline may have on the future behavior of the unit. 
Therefore, if the evidence is insufficient to convict the accused at a 
court-martial or if the victim does not want to cooperate, commanders 
have other administrative options available to them if warranted by the 
evidence.
    Holding offenders accountable is a priority; and I acknowledge that 
a higher conviction rate is one factor among many that may increase a 
victim's confidence in the system and, thereby, his or her propensity 
to report a sexual assault. This willingness to report is a critical 
element in addressing the crime of sexual assault. At the same time, 
however, both to reduce the prevalence of sexual assault and to 
increase a victim's confidence in the system, we also need to continue 
focusing significant, widespread energy on changing the culture. It is 
the relentless pursuit of education and training, coupled with 
effective leadership from the deckplate up, that will have the most 
impact on culture and behavioral changes. I believe no single focus, 
whether prosecution, legislation, or training will be sufficient in and 
of itself to adequately address this issue. It must be a thoughtful and 
measured combination of all three.

    2. Senator Gillibrand. Dr. Rooney, please explain, in your view, 
how a lower conviction rate will improve confidence in the system?
    Dr. Rooney. In my view, victim confidence in the system begins with 
knowing that unit commanders will respond appropriately. This includes 
ensuring victims receive the support and services they need and 
immediately referring all unrestricted reports of sexual assault, and 
other serious offenses, to the Naval Criminal Investigative Service for 
an independent and professional investigation. In my view, the 
important metric in this regard is not just the conviction rate, 
particularly if it results from fewer prosecutions, but the reporting 
rates by victims. Other factors that have an important impact on a 
victim's confidence in the system include adequately protecting the 
privacy of the victims, regular consultation with victims throughout 
the process, and ongoing support given to victims including but not 
limited to expedited transfers, the provision of victim's legal 
counsel, and the availability of sustained counseling.

    3. Senator Gillibrand. Dr. Rooney, please explain how commanders 
who are under pressure to push more cases forward to court martial, 
regardless of whether evidence exists, can make a fair determination on 
which cases to move forward?
    Dr. Rooney. Commanders are not under pressure to push more cases 
forward to court-martial. Commanders have been charged with promoting a 
positive command climate where sexual assaults are not tolerated, 
preventing sexual assaults from occurring in the first place, and 
ensuring victims are taken care of when a sexual assault does occur. 
When it comes to matters of discipline, commanders are to exercise 
their responsibilities to ensure fairness and justice based on the 
specific factual circumstances of each individual case.

    4. Senator Gillibrand. Dr. Rooney, if cases are sent to trial based 
on the good order and discipline of a unit, do you think that 
maintaining good order and discipline might mean keeping an alleged 
perpetrator in a unit because he serves an essential function?
    Dr. Rooney. I do not believe that maintaining good order and 
discipline means keeping an alleged perpetrator in a unit just because 
he serves an essential function. Good order and discipline includes 
holding individuals appropriately accountable for their actions, 
irrespective of whether they serve an essential function. When making 
decisions about who should remain in or depart from a unit while 
allegations are under investigation, a primary concern should continue 
to be the safety and welfare of the alleged victim.

    5. Senator Gillibrand. Dr. Rooney, do you believe that serving in 
that essential function is more important than justice?
    Dr. Rooney. No. Everyone is replaceable--from the top commanders 
down the ranks to include those who have special technical skill sets.

    6. Senator Gillibrand. Dr. Rooney, do you believe that allowing 
sexual predators to remain in the military can be consistent with 
maintaining good order and discipline?
    Dr. Rooney. Criminal conduct of any kind is not consistent with 
good order and discipline.

    7. Senator Gillibrand. Dr. Rooney, would it contribute to good 
order and discipline for a commander to send an innocent servicemember 
to court martial to prove a point to the rest of the unit as opposed to 
making the decision based on the evidence and the facts of the case?
    Dr. Rooney. No, doing so would undermine good order and discipline. 
We must ensure all servicemembers know that our system of justice is 
fair, effective, and efficient. Furthermore, it would be a violation of 
the law for a commander to refer a servicemember to court-martial if 
there was not sufficient evidence to support a prosecution. Under title 
10, U.S.C., section 834 (Article 34 of the Uniform Code of Military 
Justice), a military commander, prior to directing the trial of any 
charge by general court-martial, must refer the charge to, and receive 
the consideration and advice of, a staff judge advocate. Included in 
this written advice is an assessment of whether the charges and 
specifications are warranted by the evidence. Commanders do consider 
the evidence.

    8. Senator Gillibrand. Dr. Rooney, if evidence is not the only 
basis for making a decision on the disposition of a case, please 
explain on what basis commanders should be evaluated on their handling 
of sexual assault cases. Would commanders be rewarded for sending any 
case forward even if the evidence suggests that perhaps a crime was not 
committed?
    Dr. Rooney. Commanders should be and are evaluated on their actions 
in fostering a command climate that does not tolerate sexual assault 
and that is conducive to victim reporting and support.

    9. Senator Gillibrand. Dr. Rooney, in your testimony during your 
nomination hearing in front of the Senate Armed Services Committee you 
stated that in the Navy, ``commanders' ability and result of command 
and control on command climate is a critical piece that is considered 
for any promotion or future command.'' In August, the Navy released 
public guidance in NAVADMIN 216/13 Navy Performance Evaluation Changes, 
that officers and enlisted servicemembers must be evaluated based on 
their contribution to climate in regard to sexual assault. It appears 
as if this guidance only applies to enlisted sailors and officers of 
ranks O-6 and below. Is there a separate directive that applies to flag 
officers? If so, please provide me with a copy of that directive. If 
not, please explain why one does not exist, whether and how flag 
officers are evaluated on command climate with regard to sexual 
assault, and how this position is consistent with keeping flag officers 
accountable.
    Dr. Rooney. The Navy is committed to accountability for command 
climate at all pay grades, particularly for flag officers. I am aware 
that there is a process for evaluating the performance of flag officers 
but that it differs from the process used for officers in the grade O-6 
and below. I am also aware that there is a different process depending 
on the grade of the flag officer. O-7s receive written fitness reports 
and the guidance for completing those reports is contained in Bureau of 
Naval Personnel Instruction 1610.10C, which specifically requires flag 
officers to demonstrate that they have created or maintained a command 
climate that does not tolerate discrimination of any kind. In addition 
to fitness reports, annual command climate surveys are required. The 
results are shared with the next senior flag officer in the chain of 
command. While O-8s through O-10s do not receive written fitness 
reports, they are evaluated personally by the Chief of Naval Operations 
and annual command climate survey results are fully discussed with the 
next senior flag officer in their chain of command. Finally, I am aware 
that the Navy convenes quarterly Sexual Assault Prevention and Response 
meetings to evaluate trends across the Fleet. These meetings focus on 
where flag officer leadership is having positive or negative impacts.

    10. Senator Gillibrand. Dr. Rooney, you have served as Principal 
Deputy Under Secretary of Defense for Personnel and Readiness beginning 
June 2, 2011 and as Acting Under Secretary of Defense for Personnel and 
Readiness from November 2011 to June 2012. This service afforded you 
the unique opportunity to take concrete measures to address the growing 
problem of sexual assault in our military. Outside of any initiatives 
mandated through statutes passed by Congress, or those statutes 
currently being proposed by Congress in the National Defense 
Authorization Act for Fiscal Year 2013, please specify what initiatives 
or programs aimed at reducing the number of sexual assaults and 
ensuring the effective prosecutions of these types of assaults have you 
personally played an instrumental role in creating or implementing?
    Dr. Rooney. During my tenure as the Acting Under Secretary of 
Defense (Personnel and Readiness) the Department implemented a variety 
of initiatives to change the way we prevent the crime of sexual assault 
and how we respond when that crime occurs. Those initiatives include 
the following:

        <bullet> The Department elevated initial disposition decisions 
        to O-6 level (Colonel or Navy Captain) for cases of rape, 
        sexual assault, forcible sodomy, and attempts.
        <bullet> The Department launched the Safe Helpline to give 
        victims 24/7 global access to crisis support staff.
        <bullet> The Department implemented an expedited transfer 
        policy for victims making such a request.
        <bullet> We implemented a Department of Defense (DOD) policy to 
        retain investigative documentation for 50 years for 
        Unrestricted Reports.
        <bullet> The Sexual Assault Prevention and Response Office 
        expanded its outreach and engagement with experts from advocacy 
        groups, legal, educational and law enforcement communities in 
        order to gain constructive criticism and share best practices.
        <bullet> We revised the Sexual Assault Forensic Exam kit to 
        improve victim care and align evidence collection with national 
        standards.
        <bullet> In 2011, we established the Sexual Assault Prevention 
        and Response (SAPR) Integrated Process Team, comprised of 
        senior Office of the Secretary of Defense and Service SAPR 
        program managers, as a standing body that meets regularly to 
        review and advise on SAPR matters.
        <bullet> The Department expanded SAPR Restricted Reporting 
        support services to include adult military dependents.
        <bullet> The Department expanded SAPR services during emergency 
        care for DOD civilians stationed overseas and for DOD U.S. 
        citizen contractors in combat areas.
        <bullet> In January 2012, Military Rule of Evidence 514 was 
        enacted providing protected communications between victims and 
        advocates.
        <bullet> In April 2012, we added sexual assault questions to 
        DOD Command Climate Surveys and implemented policy to conduct 
        assessments within 120 days for new commanders and annually 
        thereafter.

    11. Senator Gillibrand. Dr. Rooney, what were the goals and metrics 
of these initiatives/programs?
    Dr. Rooney. DOD implemented specific initiatives to enhance its 
efforts to prevent the crime of sexual assault and delineated how all 
should respond when that crime occurs. The mission is twofold: to 
reduce the prevalence of sexual assault and to increase official 
reports of sexual assault. Assessment measures were developed to focus 
on these two elements. As Department leadership has stated before, one 
sexual assault is one too many. That goal was the guiding principle 
throughout the announcement and implementation of these initiatives and 
also served as the basis for assessing outcomes of programs supporting 
this target.
    The Department uses two specific metrics to assess its efforts in 
preventing sexual assaults and responding to sexual assault when it 
does occur. Official reports of sexual assault are entered into the 
Defense Sexual Assault Incident Database which yields information on 
actual reports filed. Information derived from the Workplace and Gender 
Relations Survey of Active Duty Members (WGRA) conducted by the Defense 
Manpower Data Center provides additional data elements. The Department 
uses findings from the WGRA as a source of information to evaluate 
prevention and response programs and to assess the gender-relations 
environment in the Active-Duty Force. The WGRA survey assesses the 
prevalence of sexual assault and sexual harassment in the Active-Duty 
Force.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                   civilian and contractor personnel
    12. Senator Inhofe. Dr. Rooney, the Government Accountability 
Office (GAO) projects the Department of the Navy has overstated its 
fiscal year 2014 Operation and Maintenance (O&M) budget requirement for 
civilian personnel by $128 million. What problems does the Navy have 
with its information technology (IT) systems that preclude an accurate 
accounting of its civilian personnel?
    Dr. Rooney. methodology in calculating civilian personnel 
requirements, and therefore with its determination that the requirement 
is overstated by $128 million. Since the GAO calculates costs based 
solely on civilians on board at a particular point in time (end 
strength), the Navy is unable to compare those calculations to pricing, 
which is based on hours worked (full-time equivalents) and compensation 
paid for the entire year.
    When estimates are submitted for review by the Secretary of 
Defense, more than a year before the beginning of a new fiscal year, 
they only reflect any known impacts at the time they are being 
prepared. The estimates continue to be updated, as new information and 
new impacts are identified, until the budget is submitted to Congress 
for approval. In some years, changes occur after the point of 
submission which may have significant impact on total civilian 
personnel costs. For example, during fiscal year 2013, a hiring freeze 
was imposed at the end of January and continued for 8 months through 
the balance of the fiscal year. While it would seem that a hiring 
freeze would dramatically reduce funds spent for civilian personnel, 
the Navy has not found that to be the case. In fact, although the 
number of people on board has been reduced, compensation costs are 
slightly higher than planned due to a higher than anticipated number of 
Voluntary Separation Incentive Payments/Voluntary Early Retirement 
Authority and lump sum leave payouts. I understand that one effect of 
the hiring freeze is that the Department will begin the year with fewer 
civilians on board than planned when the fiscal year 2014 budget was 
originally submitted to Congress.
    Historically, the Navy has had no problems reporting budgeted or 
actual civilian personnel End Strength and Full-Time Equivalents. I 
understand that a recent system upgrade resulted in loss of access to 
actual end strength counts. However, Full-Time Equivalent and 
Compensation data, used by the Department to track actual costs, is 
captured in a different system and has remained available throughout 
this fiscal year.

    13. Senator Inhofe. Dr. Rooney, if confirmed, what actions will you 
take to ensure that the Navy's civilian personnel budget requirements 
in the President's budget submissions will be accurate in the future?
    Dr. Rooney. The Department of the Navy conducts a rigorous budget 
review prior to submission of the President's budget to Congress each 
year. Civilian personnel are priced based on prior year execution and 
any anticipated pay raises for the coming year. Benefits (including 
health and life insurance, retirement, leave, et cetera) are priced at 
current rates, and increased costs are specifically excluded from the 
budget to contain costs and encourage efficiencies. Since the budget 
review is conducted more than a year ahead of the beginning of the 
fiscal year, it is impossible to accurately predict and accommodate 
changes that may affect estimates after the budget has been submitted 
to Congress. Estimates reflect any known impact at the time cost 
figures are being prepared. The hiring freeze and 6-day furlough which 
occurred in fiscal year 2013, as well as the impact of sequestration on 
the budget, are examples of changes occurring during the execution year 
of a budget which will likely affect estimates submitted for the next 
year's budget.

        efficiencies plan for civilian and contractor work force
    14. Senator Inhofe. Dr. Rooney, do you support the reduction of 
Navy civilian and contractor personnel to achieve additional savings in 
the Navy's O&M budget?
    Dr. Rooney. All expenditures should continue to be examined in 
light of the need to properly balance all components of the work force 
to achieve efficient and effective results. Every requirement should 
continue to be validated and prioritized with budget adjustments made 
as warranted. This includes labor requirements and associated budgets 
for the Total Force which is comprised of military, civilian and 
contractor personnel.

    15. Senator Inhofe. Dr. Rooney, what percentage reductions in both 
civilian and contractor personnel end strengths would you support?
    Dr. Rooney. As a result of budget reductions required by the Budget 
Control Act, I understand that the Department of the Navy is in the 
process of reviewing and balancing mission capabilities, Total Force 
(military, civilian, and contractor) manpower requirements and 
available funding. If confirmed, I support making adjustments to 
personnel manning levels based on necessary tradeoffs between mission 
capabilities and funding restrictions rather than a specific percentage 
target.

    16. Senator Inhofe. Dr. Rooney, in your view, will the Navy meet 
the requirement in section 955 to achieve savings in total funding of 
the civilian and contractor workforce by at least the percentage 
savings for military personnel over the Future Years Defense Program?
    Dr. Rooney. I understand that the Navy worked with DOD and provided 
the data required to facilitate the initial ``120 day'' report in 
response to section 955. I understand that the Navyhas the capability 
to manage the workforce to achieve the savings required by section 955.

    17. Senator Inhofe. Dr. Rooney, if confirmed, will you have the 
requisite authorities to reduce Navy civilian and contractor personnel?
    Dr. Rooney. The Navy has significant although not unlimited 
authority to make manpower reductions deemed necessary with appropriate 
notifications. In the case of Navy civilians, title 10, U.S.C., section 
129, allows military departments to make reductions when necessary due 
to a reduction in funds available. The Budget Control Act represents 
such a reduction in funds. The Department does not, however, have 
authority to conduct public/private competitions if they are deemed 
necessary due to the current moratorium. In the case of contractors, 
Service Contracts have mechanisms in place which include termination 
clauses and fixed expiration dates. The Navy is able to make reductions 
(but not conversions) due to funding limitations or changing mission 
requirements.

                              tricare fees
    18. Senator Inhofe. Dr. Rooney, what is your current position on 
TRICARE fee increases for working-age military retirees?
    Dr. Rooney. Personnel costs are the fastest-growing part of the 
overall DOD budget and health care costs are going up at the most 
dramatic rate in comparison to other personnel costs. As such, I 
believe that these rising costs need to be mitigated in order for long-
term personnel costs to be sustainable. I do support modest TRICARE 
premium increases for working-age retirees from the military to help 
maintain a high quality, sustainable benefit package. Even with the 
proposed increases, working-age military retirees would have one of the 
most comprehensive health benefits available, while still significantly 
less expensive than a competing commercial policy.

    19. Senator Inhofe. Dr. Rooney, why do you think the administration 
has been unsuccessful convincing Congress to legislate the DOD's fee 
increase proposals?
    Dr. Rooney. Congress is understandingly reluctant to impose 
additional costs on military retirees, but the proposals are reasonable 
in scope, appropriately differentiated through tiers, and necessary for 
the Department to deliver long-term sustainable health benefits. It is 
important to recognize that these proposals are largely focused on the 
retired military population and, even with the proposed increases, the 
amount of beneficiary cost-sharing remains far below the levels 
experienced by retirees in the mid-1990s. The TRICARE fee proposals do 
not affect Active Duty servicemembers, and specifically exempt 
medically-retired servicemembers and their families, as well as 
survivors of military members who died on Active Duty. Even with these 
proposed increases, beneficiaries will continue to have access to one 
of the most comprehensive and exceptionally affordable health benefits 
available.
    These proposals are important to maintaining our obligations to 
beneficiaries and ensuring our commitment to improving the long-term 
fiscal stability of the Military Health System. Under the leadership of 
the Secretary of Defense, the Military Departments have worked 
carefully to develop these proposals. Furthermore, the Secretary of 
Defense has articulated the potential risks to other programs should 
these proposals not be authorized.

    20. Senator Inhofe. Dr. Rooney, do you believe that the 
administration should wait on the Military Compensation and Retirement 
Commission to report its recommendations before asking Congress to make 
legislative changes to personnel benefits including health care?
    Dr. Rooney. I support the TRICARE Premium increases for working-age 
retirees which were first proposed in fiscal year 2012. Even with the 
proposed increases, working-age military retirees would have one of the 
most comprehensive health benefits available while still significantly 
less expensive than a competing commercial policy. I also believe that 
the Commission will provide other valuable information that can be 
considered for additional future proposals which may extend beyond 
health care.

                           efficiency expert
    21. Senator Inhofe. Dr. Rooney, while serving as Principal Under 
Secretary for Personnel and Readiness, what actions did you take to cut 
costs in the personnel and readiness portfolio?
    Dr. Rooney. Within the Office of the Under Secretary, I oversaw the 
identification of cuts in staff and overhead. Through zero-based 
management reviews, we streamlined operations within our Defense Agency 
and Field Activities ensuring successful performance of core priorities 
while reducing overhead. Additional plans were initiated to reduce 
civilian manning within the immediate headquarters. I oversaw plans for 
significant reductions in our service support contracts both within the 
Headquarters and at the field activities. Finally, we initiated plans 
to reduce advisory studies, eliminated non-essential, lesser-value 
reports, and initiated efforts to reduce advisory board and commission 
requirements.

    22. Senator Inhofe. Dr. Rooney, what efficiencies did you implement 
and how much did you cut DOD's costs in the role as the Under 
Secretary?
    Dr. Rooney. In response to fiscal realities our country was facing, 
I oversaw Personnel and Readiness' participation in a series of efforts 
to increase efficiencies and reduce overhead expenditures across the 
Department while maintaining readiness. These efforts covered a broad 
spectrum of activities falling under the P&R portfolio. In the area of 
civilian personnel, the Military Services and Defense Agencies were to 
maintain Department-wide civilian full-time equivalents at fiscal year 
2010 authorized levels. Through process improvements and overhead 
reductions, impacts were to be minimized. Health care reforms were 
proposed to better manage cost growth, recognize a shared commitment 
for health care with beneficiaries, and better align the Department 
with the remainder of the country. We directed significant reductions 
in both our civilian senior executive servicemembers and general/flag 
officers across the Department. Where possible we eliminated positions. 
When necessary and appropriate, we maintained positions, but at a lower 
level (i.e., GS-15, O-6) which provided cost savings in immediate 
staffs.

    23. Senator Inhofe. Dr. Rooney, if confirmed, what will you do to 
make the Navy more efficient and cost-effective?
    Dr. Rooney. If confirmed, I will continuously strive to assure all 
organizations and processes are managed as efficiently and effectively 
as possible. Obtaining a clean financial audit statement for the 
Department will be a top priority. A major challenge will be to 
optimize the organization as budgets are reduced in the out years. A 
major focus will be to avoid across-the-board reductions and focus 
instead on optimizing organizations, procedures, and processes. An 
additional focus will be insuring a regular review of new and ongoing 
contract requirements is undertaken to insure costs are managed in a 
timely and reasonable manner. Another major focus will be completing 
the implementation of the Secretary of Defense's efficiency 
initiatives.

                         priorities in the navy
    24. Senator Inhofe. Dr. Rooney, how do you characterize the current 
readiness of the Navy?
    Dr. Rooney. The Department of the Navy remains globally deployed 
every day, ready to respond to challenges to our national security 
interests, building cooperation with allies and other potential partner 
nations, as well as meeting all Operation Enduring Freedom and 
validated global force management requirements with highly ready 
forces. I understand that sustaining combat operations for more than a 
decade has required the use of a large share of the available assets 
from home bases and stations. The Navy, as the CNO has recently 
testified, is taking risk in the capacity to surge additional forces 
forward in response to contingency requirements as a result of funding 
reductions from sequestration. In addition to the obvious strategic and 
operational risk, this has a long-term impact on overall readiness that 
must be resolved. For the Marine Corps, I understand that over half of 
nondeployed Marine units are experiencing degraded readiness due to 
portions of their equipment being redistributed to support units 
deploying forward. I understand that this unbalanced readiness across 
the force has degraded the Corps' ability to respond to major 
contingencies within required timelines.

    25. Senator Inhofe. Dr. Rooney, what trends cause you concern?
    Dr. Rooney. I am most concerned about readiness trends and the 
impact of operating tempo on personnel.
    From a readiness perspective, the most critical concern is the 
underfunding of readiness accounts that is continuing now into fiscal 
year 2014, as a result of extended Continuing Resolutions and 
sequestration. Cuts within the magnitude of a long-term sequestration 
and/or Continuing Resolutions will have a significant impact on the 
global security climate, the perceptions of our enemies, and the 
confidence of our allies.
    As a nation we have asked a great deal of the young men and women 
serving our country over the last 12 years. While proud to answer the 
call, they have endured shortened turn-around times, double deployments 
in a single operational cycle, or frequently extended deployments to 
provide the force levels required. The Navy and Marine Corps team must 
remain globally deployed to accomplish its mission, but will need to do 
so in a manner which provides some predictability in the lives of our 
sailors, marines, and their families.

    26. Senator Inhofe. Dr. Rooney, are you concerned about the 
potential of hollow forces in the Navy and Marine Corps?
    Dr. Rooney. I am most concerned about the potential for reduced 
readiness and the compounding effects which can occur in those 
circumstances. The Navy and Marine Corps provide the capability to 
respond to today's crises anywhere in the world. The force is required 
to maintain high levels of readiness, so they can deploy on short 
notice and protect our national security. A hollow force cannot be an 
option.
    Our operational readiness is preserved through a careful balance of 
high quality people, well-trained units, modernized equipment, well-
maintained installations, and a force level sufficient to accomplish 
our many missions. Failure in any one of these pillars of readiness 
begins to set the conditions for an eventual hollowing of the force. I 
am specifically concerned about the reduction of Marine Corps end 
strength and the need for precision in how those reductions are 
implemented. If confirmed, I will assist the Department of the Navy and 
work with Congress to ensure we are doing all within our power to 
execute budget reductions in a manner that avoids hollowing the force.

    27. Senator Inhofe. Dr. Rooney, do you believe the Department of 
the Navy has the right funding priorities in place to address these 
readiness concerns?
    Dr. Rooney. The Secretary has been very clear that his first 
priority is to sustain a ready force today. In the context of the 
Budget Control Act's revised discretionary caps and reduced Overseas 
Contingency Operations accounts, that is the right priority--but the 
Navy must also continue to build new platforms and modernize existing 
ones that sustain our asymmetric advantages, as well as our industrial 
base, to refocus training for future security environments and keep 
faith with marines, sailors, and their families. I am aware that there 
are not only direct costs for investments, but opportunity costs. If 
you spend it on one thing, you can't spend it on another. If confirmed, 
I look forward to looking into all of our programs to make sure that 
not only the direct cost, but the opportunity costs are carefully 
considered in making investment decisions.

                    manning policy during a shutdown
    28. Senator Inhofe. Dr. Rooney, based on your prior service as the 
Assistant Secretary of Defense for Personnel and Readiness, what is 
your understanding of the current policy during the Government shutdown 
for the determination of which DOD civilians should be at work and 
which ones should be furloughed?
    Dr. Rooney. In the case of a government shutdown and absent an 
express appropriation to the contrary, civilian personnel, and military 
technicians who are not necessary to carry out or support excepted 
activities, are to be furloughed. Only the minimum number of civilian 
employees necessary to carry out excepted activities will be exempted 
from furlough. Positions that provide direct support to excepted 
positions may also be deemed excepted if they are critical to 
performing the excepted activity. Senate confirmed officials appointed 
by the President are not subject to furlough and their immediate office 
personnel necessary to support excepted activities may also be 
considered excepted at the discretion of the appointee. Foreign 
national employees paid with host country funds are exempt from 
furlough as are those where our bilateral agreements prohibit furlough.

    29. Senator Inhofe. Dr. Rooney, during the Government shutdown 
should shipyards and depots be fully manned and operating?
    Dr. Rooney. Assuming that the question is about public shipyards 
and depots funded with appropriated funds, only a minimum number of 
civilian employees necessary to carry out excepted activities would be 
excepted from furlough. This decision is not discretionary but is 
controlled by the policy defining excepted activities as well as the 
use of appropriated funds.

                          littoral combat ship
    30. Senator Inhofe. Dr. Rooney, we are planning to buy 52 Littoral 
Combat Ships (LCS) for almost $40 billion with no confirmation of how 
the ship will be used. Do you share this concern?
    Dr. Rooney. I understand that the concept of operations and design 
specifications for LCS were developed to meet capability gaps in the 
areas of Surface Warfare, Mine Counter Measure and Anti-Submarine 
Warfare with focused mission packages that deploy manned and unmanned 
vehicles to execute a variety of missions within those broader areas. I 
also understand that the Navy is in the process of testing and fielding 
the Mine Counter Measure and Surface Warfare mission packages while the 
Anti-Submarine Warfare mission package completes its initial 
development phase. Finally, USS Freedom (LCS 1) is currently deployed 
to Singapore with a Surface Warfare mission package and the ship is 
executing its intended mission that includes demonstrating the U.S. 
commitment to maintain security and stability in the vital Asia-Pacific 
region. USS Fort Worth (LCS 3) is scheduled to deploy to Singapore in 
the fall of 2014. Based on this information, I do not share your 
concern, however I do acknowledge the need to continue to closely 
monitor both test results and ongoing requirements as additional ships 
are constructed.

    31. Senator Inhofe. Dr. Rooney, if confirmed, what would you 
recommend to address the concerns about capabilities, survivability, 
manning and sustainment costs regarding LCS?
    Dr. Rooney. I understand that the LCS program is on track to meet 
all the approved requirements for capability, survivability, manning 
and sustainment costs. Since the 52 ship LCS program is a key component 
of the Navy's current and future force, rigorous oversight by me and my 
staff will continue to be exercised to ensure the program remains on 
its path to success and meets our Nation's needs. If confirmed, I will 
ensure Congress is apprised of program progress as future program 
decisions are made.

                           aircraft carriers
    32. Senator Inhofe. Dr. Rooney, the Department of the Navy recently 
announced a delay in the award of the design and construction contract 
for the next aircraft carrier CVN 79 in order to look for ways to 
reduce costs. This is a good first step in looking for lessons from the 
first carrier to save taxpayer funds for the next two. Do you support 
the delay in the award of a construction contract?
    Dr. Rooney. I understand the Navy is negotiating the award of the 
Detail Design and Construction contract for CVN 79. I also understand 
that until these negotiations conclude, the Navy intends to extend the 
current Construction Preparation Contract to authorize planning, 
material procurement, and discrete work that are aligned with the 
ship's optimal build plan. This extension should mitigate impacts to 
the ship's delivery schedule and the industrial base. Continued 
negotiations on the design contract will afford an opportunity for the 
shipbuilder to incorporate further construction process improvements 
into the construction plan. I support this effort to drive 
affordability into the ship and protect the industrial base.

    33. Senator Inhofe. Dr. Rooney, do you believe the Navy can afford 
an aircraft carrier costing more than $12.8 billion?
    Dr. Rooney. I understand that actions taken by the Navy and the 
shipbuilder to reverse the trends in cost growth have yielded improved 
performance on the CVN 78 Program; however, cost growth incurred 
earlier in the construction of the lead ship could not be undone. In 
addition, the approach to carrier construction has undergone an 
extensive affordability review and resulted in changes on CVN 79 that 
will significantly reduce the cost to build the ship. If confirmed, I 
will continue efforts to drive cost reductions through lessons learned 
from the first of class and innovative approaches to carrier 
construction to reduce the cost to build CVN 79 and beyond.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                          littoral combat ship
    34. Senator McCain. Dr. Rooney, in response to my questions in the 
hearing about whether you agree with the GAO recommendation that, ``The 
apparent disconnect between the LCS acquisition strategy and the needs 
of the end user suggest that a pause is needed.'' You confirmed the 
controversy with the program and the need for very stringent 
requirements, but stated that you were concerned that a pause would 
cause the costs to go up. Please provide me your description of very 
stringent requirements you would base future acquisition decisions.
    Dr. Rooney. If confirmed I would ensure future acquisition 
decisions will be informed by progress to achieve program milestones as 
well as rigorous analysis of the cost of ships and a ``should cost'' 
assessment. Contracts for ships beyond the Block Buy should also be 
informed by actual cost returns, not estimates, for all ships delivered 
as well as ships under construction.

    35. Senator McCain. Dr. Rooney, if confirmed, would you advocate 
for continued funding of the LCS if controversy or questions continue 
to persist about the ship's capabilities?
    Dr. Rooney. If confirmed, I would ensure that prior to moving 
forward with future major acquisition decisions and the associated 
funding, that the program continues to demonstrate progress towards 
meeting the requirements for Initial Operational Capability of each 
seaframe and associated Mission Packages.

    36. Senator McCain. Dr. Rooney, I am extremely concerned that we 
are planning to buy 52 of these ships for $37 billion with no 
confirmation of how the ship will be used or to what extent it will 
satisfy the requirements of combatant commanders. Do you share these 
concerns?
    Dr. Rooney. I understand that the concept of operations and design 
specifications for LCS were developed to meet capability gaps in the 
areas of Surface Warfare, Mine Counter Measure and Anti-Submarine 
Warfare with focused mission packages that deploy manned and unmanned 
vehicles to execute a variety of missions within these areas. I further 
understand that the Navy is in the process of testing and fielding the 
Mine Counter Measure and Surface Warfare mission packages while the 
Anti-Submarine Warfare mission package completes its initial 
development phase. Finally, USS Freedom (LCS 1) is currently deployed 
to Singapore with a Surface Warfare mission package. The ship is 
executing its intended mission that includes demonstrating the U.S. 
commitment to maintain security and stability in the vital Asia-Pacific 
region. USS Fort Worth (LCS 3) is scheduled to deploy to Singapore in 
the fall of 2014. Based on this information, I do not share your 
concern, however I do acknowledge the need to continue to closely 
monitor both test results and ongoing requirements as additional ships 
are constructed.

                           navy auditability
    37. Senator McCain. Dr. Rooney, in your response to written hearing 
questions, you said you didn't have enough information to say whether 
the Navy will meet its legal obligation to meet the financial audit 
deadlines for 2014 to 2017. What is your opinion today?
    Dr. Rooney. Based on the Department's currently favorable risk 
assessment of the remaining efforts, today I am cautiously optimistic 
that the Navy will achieve the fiscal year 2014 mandate. A brief 
summary of the Department of the Navy's progress toward achieving audit 
readiness on its Statement of Budgetary Activity (SBA) by the end of 
fiscal year 2014 follows:

        <bullet> The Marine Corps' portion of this statement has been 
        under audit for several annual cycles, and has made great 
        strides towards obtaining a favorable opinion.
        <bullet> In addition to the Marine Corps effort, the Navy has 
        asserted audit readiness on seven SBA-related business areas. 
        These areas include: E-2D Advanced Hawkeye Major Defense 
        Acquisition Program (MDAP), Appropriations Received, Civilian 
        Pay, Transportation of People (TOP), Reimbursable Work Orders 
        (RWO), Military Pay, and Fund Balance with Treasury (FBWT). Of 
        these seven, four (E-2D MDAP, Appropriations Received, Civilian 
        Pay, TOP) received favorable opinions after independent 
        examinations were completed on them.
        <bullet> Exams on two more of these SBA-related areas (RWO, 
        Military Pay) are currently underway, and the Navy expects the 
        third examination (FBWT) to commence soon.
        <bullet> Three remaining business areas (Contract/Vendor Pay, 
        Requisitioning, and Financial Statement Compilation/Reporting) 
        comprising the SBA are on schedule to be asserted in fiscal 
        year 2014.

    38. Senator McCain. Dr. Rooney, can the Navy meet its legal 
financial audit obligations?
    Dr. Rooney. I am cautiously optimistic that the Department will 
achieve the fiscal year 2017 mandate of full financial auditability. 
Reaching audit readiness on the Statement of Budgetary Activity will be 
a big step toward the fiscal year 2017 goal, and the Navy has a sound 
approach to known remaining challenges, including: sustaining the 
auditability gains made so far; strengthening mission essential asset 
accountability and valuation; and improving the controls in relevant 
financial systems, including those managed by service providers.

                           personnel strength
    39. Senator McCain. Dr. Rooney, last month the GAO provided an 
analysis of the personnel strength, and the GAO said the Navy ``could 
not provide how many civilians it has as of July 2013, because 
according to Navy officials there's a problem with its information 
systems.'' How many civilian employees does the Department of the Navy 
have?
    Dr. Rooney. As of the end 30 September 2013, the Navy civilian 
population was 254,240. This includes 195,665 U.S.-Direct employees, 
44,817 Non-appropriated Fund Instrumentality employees and 13,758 
Foreign National employees.
                                 ______
                                 
    [The nomination reference of Dr. Jo Ann Rooney follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 11, 2013.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jo Ann Rooney, of Massachusetts, to be Under Secretary of the Navy, 
vice Robert O. Work, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Jo Ann Rooney, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Dr. Jo Ann Rooney
Education:
    Boston University School of Management

        <bullet> September 1979-May 1983
        <bullet> Bachelor of Science Degree awarded May 1983

    Suffolk University Law School

        <bullet> September 1984-February 1987
        <bullet> Juris Doctor Degree awarded February 1987

    Boston University School of Law

        <bullet> August 1989-May 1991
        <bullet> Master of Laws Degree awarded May 1991

    University of Pennsylvania

        <bullet> August 2003-May 2005
        <bullet> Doctorate of Education awarded in May 2005
Employment record:
    Huron Consulting Group

        <bullet> Managing Director
        <bullet> September 2012-present

    U.S. Department of Defense, Office of the Secretary of Defense

        <bullet> March 2011-September 2012

                <bullet> March 2011-May 2011, Senior Advisor to the 
                Under Secretary of Defense (Comptroller)
                <bullet> June 2011-September 2012, Principal Deputy 
                Under Secretary of Defense for Personnel and Readiness 
                (Confirmed by Senate May 2011 after hearing before SASC 
                on February 2011)
                <bullet> November 2011-June 2012, Acting Under 
                Secretary of Defense for Personnel and Readiness

    Mount Ida College, Newton, MA

        <bullet> July 2010-December 2010
        <bullet> July 2010-December 2010, President
        <bullet> July 2010-December 2010, Professor of Business 
        Administration

    Spalding University, Louisville, KY

        <bullet> President and Professor of Business Administration
        <bullet> August 2002-June 2010

    Emmanuel College, Boston, MA

        <bullet> Adjunct Faculty
        <bullet> August 1994-August 2002

    The Lyons Companies, LCC, Waltham, MA

        <bullet> Corporate General Counsel/Chief Financial Officer/
        Partner
        <bullet> September 1994-August 2002

    Maselan and Jones, PC, Boston, MA

        <bullet> Tax Attorney
        <bullet> July 1993-September 1994

    Stearns, Rooney & Associates

        <bullet> July 1992-December 1993
        <bullet> Partner

    Cigna Companies, Boston, MA and While Plains, NY

        <bullet> June 1991-July 1993

                <bullet> July 1992-July 1993, Staff Attorney
                <bullet> June 1991-June 1992,Technical Manager
Honors and awards:
    Department of Defense Medal for Distinguished Public Service, 
September 2012
    Today's Woman Magazine, 2006 Most Admired Woman in Education
    Business and Professional Women/River City, 2006 Woman of 
Achievement
    Business First, Partners in Health Care Award 2006, 2007, 2008, 
2009, and 2010
    Scholar House, Lucy Award 2009 (outstanding achievement supporting 
educational opportunities for women and families)
    Mayor's Citation for Community Service to the City of Louisville, 
February 1, 2010 (presented for distinguished and outstanding service 
to the City of Louisville)
    Beta Gamma Sigma
    Lock Honorary Society
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Jo Ann 
Rooney in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jo Ann Rooney.

    2. Position to which nominated:
    Under Secretary of the Navy.

    3. Date of nomination:
    September 11, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 23, 1961; Hazleton, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Pennsylvania, Graduate School of Education, August 
2003-May 2005, Ed.D. (Doctorate in Education) Higher Education 
Management, May 2005.
    Boston University School of Law, August 1989-May 1991, LL.M. 
(Master of Laws) in Taxation, May 1991.
    Suffolk University Law School, September 1984-February 1987, J.D. 
(Juris Doctorate) February 1987.
    Boston University School of Management, September 1979-May 1983, 
B.S. Business Administration, Finance Concentration, Summa Cum Laude, 
May 1983.
    West Hazleton High School, September 1975-June 1979, High School 
Diploma, June 1979.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    9/2012-present, Managing Director, Huron Consulting Group, Chicago, 
IL
    3/2011-9/2012, U.S.Department of Defense, Office of the Secretary 
of Defense, Pentagon, Washington, DC.
    11/2011-6/2012, Acting Under Secretary of Defense for Personnel and 
Readiness
    6/2011-9/2012, Principal Deputy Under Secretary of Defense for 
Personnel and Readiness (hearing before U.S. Senate Armed Services 
Committee 2/2011, confirmed by the U.S. Senate May 2011)
    3/2011-5/2011, Senior Advisor to the Under Secretary of Defense 
Comptroller
    7/2010-12/2010, President of Mount Ida College, Newton, MA
    7/2010-12/2010, Professor of Business Administration, Mount Ida 
College, Newton, MA
    8/2002-6/2010, President of Spalding University, Louisville, KY
    8/2002-6/2010, Professor of Business Administration, Spalding 
University, Louisville, KY

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    9/2012-present, Managing Director (not a member of the Board of 
Directors), Huron Consulting Group, Chicago, IL

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Bar Association
    Massachusetts Bar Association and Massachusetts Board of Bar 
Overseers
    Rhode Island Bar Association
    Florida Bar Association
    Beta Gamma Sigma National Honor Society
    Member - Trustees of the Reservations (MA)
    Member - Boat U.S.
    Member - U.S. Rowing
    Member - Hull Lifesaving Museum
    Penn Alumni Association (University of Pennsylvania)
    Suffolk University Alumni Association
    Boston University Alumni Association
    St. Paul Parish (Hingham, MA)

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for whichyou have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Department of Defense Medal for Distinguished Public Service - 
September 2012
    Today's Woman Magazine, 2006 Most Admired Woman in Education 
Business and Professional Women/River City, 2006 Woman of Achievement
    Business First, Partners in Health Care Award 2006, 2007, 2008, 
2009, and 2010
    Scholar House, Lucy Award 2009 (outstanding achievement supporting 
educational opportunities for women and families)
    Mayor's Citation for Community Service to the City of Louisville, 
February 1, 2010 (presented for distinguished and outstanding service 
to the City of Louisville)
    Beta Gamma Sigma
    Lock Honorary Society

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    November 1, 2012 - University of Michigan - 6th annual Susan B 
Meister Lecturer in Child Health Policy ``Our Military's Children: 
Insights From Over a Decade of War'', Prepared and Presented By: Dr. Jo 
Ann Rooney
    Dissertation - Spring 2005 - Navigating in a Building Sea of 
Change: Successful Growth Strategies of Two Private Higher Education 
Institutions, Author: Dr. Jo Ann Rooney
    April 2009 - Association of Governing Boards (AGB) National 
Conference on Trusteeship, ``Board Engagement in Major Academic 
Change'', Prepared and Presented By: Dr. Jo Ann Rooney and Dr. L. Randy 
Strickland
    May 2008 - Kentucky Council on Post Secondary Education (CPE) 8th 
Annual Conference on the Scholarship of Teaching and Learning - 
Challenging Student to Think Critically and Learn Deeply, Keynote 
Address ``Boomers vs. X vs. Y: Educating Across Generations'', Prepared 
and Presented By: Dr. Jo Ann Rooney
    April 2008 - Association of Governing Boards (AGB) National 
Conference on Trusteeship, ``Fostering Active Board Participation in 
Academic Governance'', Prepared and Presented By: Dr. Jo Ann Rooney and 
Dr. L. Randy Strickland
    February 2008 - Kentucky Council on Post Secondary Education (CPE) 
Adult Learner Summit, ``Best Practices in Retention in Accelerated 
Programs'', Prepared and Presented By: Dr. Jo Ann Rooney
    December 2007 - Commission on Colleges of the Southern Association 
of Colleges and Schools (SACS) Annual Meeting, ``Reaffirmation 101: A 
Case Study of Spalding University'' Prepared and Presented By: Dr. Jo 
Ann Rooney, Dr. L. Randy Strickland, Dr. Lynn Gillette, and Victoria 
Murden McClure
    December 2007 - Commission on Colleges of the Southern Association 
of Colleges and Schools (SACS) Annual Meeting, ``General Education 
Assessment ASAP'' Prepared and Presented By: Dr. Jo Ann Rooney, Dr. L. 
Randy Strickland, Dr. Lynn Gillette
    November 2007 - Council for Accelerated and Experiential Learning 
International Conference, ``Demonstrating the Effectiveness of 
Accelerated Programs'' Prepared and Presented By: Dr. Jo Ann Rooney, 
Dr. L. Randy Strickland, Dr. Lynn Gillette

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given several speeches during the last 5 years. Three 
representative speeches are provided, and additional speeches can be 
made available upon request. I also have a record of written and oral 
testimony before congressional oversight committees all of which are 
included in the Congressional Record.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                     Jo Ann Rooney.
    This 27th day of September, 2013.

    [The nomination of Dr. Jo Ann Rooney was reported to the 
Senate by Chairman Levin on October 31, 2013, with the 
recommendation that the nomination be confirmed. The nomination 
was returned to the President at the end of the first session 
of the 113th Congress on January 6, 2014, under provisions of 
Senate Rule XXXI, paragraph 6 of the Standing Rules of the 
Senate.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.

                                 <all>
      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
